<html>
<title> - NOMINATIONS</title>
<body><pre>[Senate Hearing 115-607]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-607

                       NOMINATION HEARINGS OF THE
                     115TH CONGRESS_SECOND SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                   JANUARY 3, 2018 TO JANUARY 3, 2019

                               ----------                              


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-191 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e4948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>                 
        


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                          C O N T E N T S

                              ----------                              

Responses to additional questions from the committee and any 
  additional material submitted for the record are located at the 
  end of each hearing transcript.
                              ----------                              

THURSDAY, FEBRUARY 15, 2018......................................     1

    Thompson, Col. Andrea L. (USA, Ret.), of South Dakota, 
      nominated to be Under Secretary of State for Arms Control 
      and International Security.................................     6

    Thornton, Susan A., of Maine, nominated to be an Assistant 
      Secretary of State for East Asian and Pacific Affairs......     9

    Fannon, Francis R., of Virginia, nominated to be an Assistant 
      Secretary of State for Energy Resources....................    12

TUESDAY, FEBRUARY 27, 2018.......................................    99

    Moley, Hon. Kevin Edward, of Arizona, nominated to be 
      Assistant Secretary of State for International Organization 
      Affairs....................................................   102

    Olsen, Hon. Josephine, of Maryland, nominated to be Director 
      of the Peace Corps.........................................   104

    Bethel, Erik, of Florida, nominated to be U.S. Alternate 
      Executive Director of the International Bank for 
      Reconstruction and Development.............................   122

    Cairncross, Sean, of Minnesota, nominated to be Chief 
      Executive Officer, Millennium Challenge Corporation........   124

THURSDAY, MARCH 1, 2018..........................................   149

    Pence, Robert, of Virginia, nominated to be Ambassador to the 
      Republic of Finland........................................   152

    Shelton, Dr. Judy, of Virginia, nominated to be U.S. 
      Executive Director of the European Bank for Reconstruction 
      and Development............................................   155

    Traina, Trevor, of California, nominated to be Ambassador to 
      the Republic of Austria....................................   158

WEDNESDAY, MARCH 7, 2018.........................................   181

    Bernstein, Robin S., of Florida, nominated to be Ambassador 
      to the Dominican Republic..................................   188

    Royce, Marie, of California, nominated to be an Assistant 
      Secretary of State for Educational and Cultural Affairs....   191

    Macmanus, Hon. Joseph E., of New York, nominated to be 
      Ambassador to the Republic of Colombia.....................   194

    Prado, Hon. Edward Charles, of Texas, nominated to be 
      Ambassador to the Argentine Republic.......................   196

                                 (iii)

WEDNESDAY, APRIL 11, 2018........................................   239

    Madison, Kirsten Dawn, of Florida, nominated to be an 
      Assistant Secretary of State for International Narcotics 
      and Law Enforcement Affairs................................   241

    Hushek, Thomas J., of Wisconsin, nominated to be Ambassador 
      to the Republic of South Sudan.............................   244
      
THURSDAY, APRIL 12, 2018.........................................NA \1\


---------------------------------------------------------------------------
    \1\ S.Hrg. 115-339 (https://www.govinfo.gov/content/pkg/CHRG-
115shrg29844/pdf/CHRG-115shrg29844.pdf)

    Pompeo, Mike, nominated to be U.S. Secretary of State, 
      hearing transcript printed under separate cover............    NA

WEDNESDAY, MAY 9, 2018...........................................   279

    Wolcott, Hon. Jackie, of Virginia, nominated to be a U.S. 
      Representative to the Vienna Office of the U.N, and to be a 
      U.S. Representative to the International Atomic Energy 
      Agency.....................................................   281

    Cohen, Jonathan R., of California, nominated to be the U.S. 
      Deputy Representative to the U.N. on the U.N. Security 
      Counsel and the U.N. General Assembly......................   284

    Cella, Joseph, of Michigan, nominated to be Ambassador to the 
      Republic of the Fiji Islands, The Republic of Kiribati, The 
      Republic of Nauru, The Kingdom of Tonga, and Tuvalu........   287

    Cornstein, David B., of New York, nominated to be Ambassador 
      to Hungary.................................................   290

    Pedrosa, Eliot, of Florida, nominated to be the Alternate 
      Executive Director of the Inter-American Development Bank..   293

TUESDAY, JUNE 5, 2018............................................   335

    Mosbacher, Hon. Georgette, of Florida, nominated to be 
      Ambassador to the Republic of Poland.......................   339

    Akard, Stephen, of Indiana, nominated to be Director of the 
      Office of Foreign Missions.................................   342

    Rosen, Mark, of Connecticut, nominated to be United States 
      Executive Director of the International Monetary Fund for a 
      Term of two years..........................................   344

WEDNESDAY, JUNE 13, 2018.........................................   361

    Mondello, Joseph N., of New York, nominated to be Ambassador 
      to the Republic of Trinidad and Tobago.....................   369

    Breier, Kimberly, of Virginia, nominated to be an Assistant 
      Secretary of State for Western Hemisphere Affairs..........   372

    George, Hon. Kenneth S., of Texas, nominated to be Ambassador 
      to the Oriental Republic of Uruguay........................   376

THURSDAY, JUNE 14, 2018..........................................   451

    Harris, Harry B. Jr., of Florida, nominated to be Ambassador 
      to the Republic of Korea...................................   458

    Nagy, Hon. Tibor Peter, Jr., of Texas, nominated to be an 
      Assistant Secretary of State for African Affairs...........   461

    Schenker, David, of New Jersey, nominated to be an Assistant 
      Secretary of State for Near Eastern Affairs................   464
THURSDAY, JUNE 21, 2018..........................................   541

    Nichols, Hon. Brian A., of Rhode Island, nominated to be 
      Ambassador to the Republic of Zimbabwe.....................   547

    Sondland, Gordon D., of Washington, nominated to be U.S. 
      Representative to the European Union.......................   550

    Gidwitz, Ronald, of Illinois, nominated to be Ambassador to 
      the Republic of Niger......................................   554

    Chalet, Cherith Norman, of New Jersey, nominated to be an 
      Alternate U.S. Representative to the U.N. and a U.S. 
      Representative to the U.N. for Management and Reform.......   557

THURSDAY, JUNE 28, 2018..........................................   599

    Lu, Hon. Donald, of California, to be Ambassador to the 
      Kyrgyz Republic............................................   601

    Berry, Randy W., of Colorado, to be Ambassador to the Federal 
      Democratic Republic of Nepal...............................   605

    Teplitz, Hon. Alaina B., of Colorado, nominated to be 
      Ambassador to the Democratic Socialist Republic of Sri 
      Lanka and as Ambassador to the Republic of Maldives........   608

WEDNESDAY, JULY 18, 2018.........................................   635

    Bulatao, Brian J., of Texas, nominated to be an Under 
      Secretary of State for Management..........................   641

    Natali, Denise, of New Jersey, nominated to be an Assistant 
      Secretary of State for Conflict and Stabilization 
      Operations.................................................   645

TUESDAY, JULY 31, 2018...........................................   689

    Tapia, Donald R., of Arizona, nominated to be Ambassador to 
      Jamaica....................................................   693

    Sullivan, Hon. Stephanie S., of Maryland, nominated to be 
      Ambassador to the Republic of Ghana........................   686

    Hammer, Hon. Michael A., of Maryland, nominated to be 
      Ambassador to the Democratic Republic of the Congo.........   699

    McCarter, Kyle, of Illinois, nominated to be Ambassador to 
      the Republic of Kenya......................................   702

WEDNESDAY, AUGUST 1, 2018........................................   757

    Cooper, Major R. Clarke, of Florida, nominated to be an 
      Assistant Secretary of State for Political-Military Affairs   760

    Richmond, John Cotton, of Virginia, nominated to be Director 
      of the Office to Monitor and Combat Trafficking............   763

THURSDAY, AUGUST 16, 2018 (A.M.).................................   807

    Hale, Hon. David, of New Jersey, nominated to be an Under 
      Secretary of State for Political Affairs...................   810

THURSDAY, AUGUST 16, 2018 (P.M.).................................   877

    Blanchard, Lynda, of Alabama, nominated to be Ambassador to 
      the Republic of Slovenia...................................   880

    Hogan, Dereck J., of Virginia, nominated to be Ambassador to 
      the Republic of Moldova....................................   883

    Kosnett, Philip, of Virginia, nominated to be Ambassador to 
      the Republic of Kosovo.....................................   886

    Reinke, Judy Rising, of Virginia, nominated to be Ambassador 
      to Montenegro..............................................   889
WEDNESDAY, AUGUST 22, 2018.......................................   929

    Williams, Karen L., of Missouri, nominated to be Ambassador 
      to the Republic of Suriname................................   934

    Palmieri, Francisco Luis, of Connecticut, nominated to be 
      Ambassador to the Republic of Honduras.....................   936

    Sullivan, Kevin K., of Ohio, nominated to be Ambassador to 
      the Republic of Nicaragua..................................   939

THURSDAY, AUGUST 23, 2018........................................   999

    Fischer, David T., of Michigan, nominated to be Ambassador to 
      the Kingdom of Morocco.....................................  1003

    Miller, Hon. Earl Robert, of Michigan, nominated to be 
      Ambassador to the People's Republic of Bangladesh..........  1006

    Rosenblum, Daniel N., of Maryland, nominated to be Ambassador 
      to the Republic of Uzbekistan..............................  1009

    Tom, Kip, of Indiana, nominated to be U.S. Representative to 
      the United Nations for Agencies for Food and Agriculture...  1013

    Yamamoto, Hon. Donald Y., of Washington, nominated to be 
      Ambassador to the Federal Republic of Somalia..............  1015

TUESDAY, SEPTEMBER 25, 2018......................................  1067

    Montgomery, Mark, of Virginia, nominated to be an assistant 
      administrator of the U.S. Agency for International 
      Development for Democracy, Conflict, and Humanitarian 
      Assistance.................................................  1069

    Glick, Bonnie, of Maryland, nominated to be Deputy 
      Administrator of the U.S. Agency for International 
      Development................................................  1073

    Harvey, Michael T., of Texas, nominated to be an assistant 
      administrator of the U.S. Agency for International 
      Development for the Middle East............................  1077

WEDNESDAY, SEPTEMBER 26, 2018....................................  1159

    Cloud, Craig Lewis, of Florida, nominated to be Ambassador to 
      the Republic of Botswana...................................  1162

    Pelletier, Michael Peter, of Maine, nominated to be 
      Ambassador to the Republic of Madagascar and to the Union 
      of the Comoros.............................................  1164

    Scott, Robert K., of Maryland, Class of Counselor, nominated 
      to be Ambassador to the Republic of Malawi.................  1166

    Tamlyn, Hon. Lucy, of New York, nominated to be Ambassador to 
      the Central African Republic...............................  1168

    Stromayer, Eric William, of Virginia, nominated to be 
      Ambassador to the Togolese Republic........................  1175

    Hankins, Hon. Dennis B., of Minnesota, nominated to be 
      Ambassador to the Republic of Mali.........................  1177

    Hearne, Dennis Walter, of Virginia, nominated to be 
      Ambassador to the Republic of Mozambique...................  1179

    Henshaw, Simon, of Massachusetts, nominated to be Ambassador 
      to the Republic of Guinea..................................  1182

THURSDAY, OCTOBER 4, 2018........................................  1253

    Garber, Hon. Judith G., of Virginia, nominated to be U.S. 
      Ambassador to the Republic of Cyprus.......................  1255

    Gunter, Dr. Jeffrey Ross, of California, nominated to be 
      Ambassador to the Republic of Iceland......................  1258
THURSDAY, OCTOBER 4, 2018--continued

    Litzenberger, Earle D., of Virginia, nominated to be 
      Ambassador to Azerbaijan...................................  1261

    Nelson, Eric George, of Virginia, nominated to be Ambassador 
      to Bosnia and Herzegovina..................................  1265

THURSDAY, OCTOBER 11, 2018.......................................  1309

    Blome, Donald Armin, of Illinois, to be Ambassador to the 
      Republic of Tunisia........................................  1311

    Moser, Hon. William, of North Carolina, nominated to be 
      Ambassador to the Republic of Kazakhstan...................  1313

    Pommersheim, John Mark, of Florida, nominated to be 
      Ambassador to the Republic of Tajikistan...................  1316

WEDNESDAY, NOVEMBER 14, 2018.....................................  1343

    Mahoney, Patricia, of Virginia, to be Ambassador to the 
      Republic of Benin..........................................  1346

    Paschall, Richard Carlton, III, of North Carolina, nominated 
      to be Ambassador to the Republic of the Gambia.............  1349

    Stevenson, Susan N., of Washington, nominated to be 
      Ambassador to the Republic of Equatorial Guinea............  1352

TUESDAY, DECEMBER 4, 2018 (A.M.).................................  1385

    Klecheski, Michael S., of New York, nominated to be 
      Ambassador to the Republic of Mongolia.....................  1386

    Matthews, Hon. Matthew John, of Virginia, nominated to be 
      Ambassador to Brunei Darussalam............................  1390

    Murphy, W. Patrick, of Vermont, to be Deputy Ambassador to 
      the Kingdom of Cambodia....................................  1393

TUESDAY, DECEMBER 4, 2018 (P.M.).................................  1439

    Culvahouse, Arthur B., Jr., of Tennessee, nominated to be 
      Ambassador to the Commonwealth of Australia................  1444

    Perez, Hon. Carol Z., of Virginia, nominated to be Director 
      General of the Foreign service.............................  1447

    Henzel, Christopher Paul, of Virginia, nominated to be 
      Ambassador to the Republic of Yemen........................  1449

    Barsa, John, of Florida, nominated to be an assistant 
      administrator of the U.S. Agency for International 
      Development for Latin America and the Caribbean............  1452

    Lynch, Sarah-Ann, of Maryland, to be Ambassador to the Co-
      Operative Republic of Guyana...............................  1456

    Tracy, Lynne M., of Ohio, nominated to be Ambassador to the 
      Republic of Armenia........................................  1458

APPENDICES.......................................................  1543


    Appendix I.--Nominations Considered by the Committee.........  1544


    Appendix II.--Nominations Withdrawn by the President.........  1550


    Appendix III.--Nominations Returned to the President.........  1550

.                             
                            NOMINATIONS

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Young, Barrasso, Menendez, Cardin, Shaheen, Murphy, 
Kaine, Markey, and Merkley.
    Also Present: Senator Thune.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations committee will come to 
order.
    And we appreciate our distinguished nominees for being here 
and, very importantly, Senator Thune. I do want you to know we 
normally start on time. Today is unusual. I know that Senator 
Menendez had a previous engagement that ran over.
    Today's committee will hold a nomination hearing for three 
very important positions. Our nominees today are Andrea 
Thompson to be Under Secretary of State for Arms Control and 
International Security Affairs; Susan Thornton to be the 
Assistant Secretary for East Asian and Pacific Affairs; and 
Francis Fannon to be the Assistant Secretary for Energy 
Resources.
    First, however, we have some distinguished guests. I know 
that Senator Gardner is here also to talk about one of the 
nominees, who wished to introduce these nominees. And so, we 
are going to allow them to proceed with their introductions so 
they can leave and do other duties. I know you have got a lot 
going on, both of you.
    Therefore, I am going to postpone my opening comment--and I 
know that Senator Menendez has agreed to do the same--and let 
you go ahead and do your introductions, and then we will begin 
the process in the normal manner.
    So, with that, I would like to introduce the well-known, 
distinguished Senator John Thune of South Dakota.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Chairman Corker, thank you, Senator 
Menendez, members of the committee. It is a--an honor and a 
privilege to have the opportunity to introduce to the committee 
a distinguished South Dakota native, Colonel Andrea Thompson.
    I often say that South Dakota punches above its weight in 
service to the country. And Andrea is a stellar example of 
that. She is a fifth-generation South Dakotan whose family I 
have known for decades, and she is extremely qualified to serve 
as the Under Secretary of State for Arms Control and 
International Security.
    She is currently a senior advisor at the State Department, 
and previously was Deputy Assistant to the President and 
National Security Advisor to the Vice President at the White 
House. Prior to that, she served as the National Security 
Advisor for the U.S. House of Representatives Committee on 
Homeland Security, the Executive Officer to the Under Secretary 
of the Army, and as the Senior Military Advisor to the House of 
Representatives Foreign Affairs committee.
    She is undoubtedly familiar with the numerous challenges 
that Congress and the administration face today, but she is no 
stranger to the frank discussions that must take place to 
ensure that America responds to such threats with clear eyes.
    Andrea gave over 25 years of service to the United States 
Army, including combat deployments to Afghanistan as 
Intelligence Director at Chief of Staff Iraq, as Senior 
Intelligence Officer for Multinational Division North, as well 
as tours in Bosnia, Honduras, Belize, and Germany.
    As the Under Secretary of State for Arms Control and 
International Security, she will be tasked with leading the 
State Department's efforts on nonproliferation and verification 
of international agreements. There will be no shortage of 
trials.
    The members of the committee are well aware of the 
challenges the United States faces today, and I have full faith 
that Andrea will continue her exemplary service, if confirmed. 
She will bring with her not only her depth of experience, but a 
humble sense of service that stems from her South Dakota roots.
    Andrea graduated from my graduate school alma mater, the 
University of South Dakota, with honors, and received their 
Alumni Achievement Award in 2011. She went on to earn her 
master of science with honors at Long Island University, and 
master of arts in national security and strategic studies at 
National Defense University.
    But, before she left South Dakota to begin her career of 
service, she was a standout high school and college athlete, 
and even delivered the Argus Leader newspaper for 6 years. She 
is supported by her family back home, as well as her husband, 
David Gillian. And, Mr. Chairman, Andrea Thompson has my vote 
of confidence, as well.
    Thank you for the opportunity to introduce Andrea this 
morning. I urge my colleagues on this committee to see that she 
is quickly confirmed following the hearing today.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much for being here. And 
you are welcome to go about your duties. You did not mention 
whether you graduated with honors from the same university. 
[Laughter.]
    The Chairman. I assume you did. But, I am----
    Senator Thune. Yeah, thank you for pointing that out, Mr. 
Chairman. [Laughter.]
    The Chairman [continuing]. Yes, sir.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for your time and 
testimony today and, more importantly, your service and 
commitment to our country. It is truly appreciated.
    It is my great honor to introduce Frank Fannon for this 
position. I am excited about the work that you will be doing. I 
have known Mr. Fannon--Frank--for a very long time. My time 
started in the office of Senator Wayne Allard, back over 15 
years ago now, and that is where I had the opportunity to meet 
somebody who worked in the office of Senator Ben Nighthorse 
Campbell from Colorado by the name of Frank Fannon. We never 
knew him by ``Francis.'' We did know him by ``Frank.'' And the 
opportunity to work with Frank on a number of issues important 
to Colorado and the West of--every issue from our incredible 
exploration opportunities in Colorado on oil and gas, to Good 
Samaritan legislation that Mr. Fannon worked on, not only in 
Senator Campbell's office, but prior to that, in Pete 
Domenici's office, as well.
    After Senator Campbell's office, had the opportunity to go 
work for the EPW committee, served as counsel at the 
Environment and Public Works committee under our colleague 
Senator Inhofe, was instrumental in the writing and passage of 
the Energy Policy Act of 2005. Then he spent the past several 
years in the private sector, working for a number of 
organizations, from VHP to Murphy to others, where he has 
gained valuable experience on how the policies that he helped 
craft through Senator Domenici's office, Senator Campbell's 
office, and the EPW committee, how that works in the real 
world. And I think that is the kind of experience that we need 
at the State Department when we focus on the energy 
opportunities around the globe and the diplomacy that our 
energy gives us the ability to utilize around the globe, that 
opportunity to flex our American energy independence as it 
relates to our allies from Europe to Asia, and what that can do 
for this country and our diplomatic efforts and our economic 
growth.
    So, it is a great honor, again, to be with Mr. Fannon and 
the nominees here today. I strongly support the nomination of 
Frank Fannon. I hope the rest of you will, as well. And it is 
just good to see him grow up and do good things.
    The Chairman. Well, it is good to see you grow up and do 
good things, too. [Laughter.]
    The Chairman. Today, we will consider the nominations of 
three distinguished individuals, as we have said, to serve our 
Nation at the State Department, each in an essential role.
    Andrea L. Thompson, the nominee for Under Secretary of 
State for Arms Control and International Security Affairs, 
joined the Army after graduating from the University of South 
Dakota in 1988, and attained the rank of colonel before 
retiring in 2016. She served in military intelligence with 
deployments to Iraq, Afghanistan, and Bosnia, and most recently 
served as National Security Advisor to the Vice President. The 
Under Secretary for State--of State for Arms Control supervises 
the bureaus tasked with guaranteeing compliance with 
international arms treaties, licensing arms sales to other 
countries, and monitoring nuclear nonproliferation around the 
globe. At a time when the Syrian regime uses chemical weapons 
against its own people, and the Russian President, Vladimir 
Putin, fails to comply with the INF Treaty, we need an Under 
Secretary at the helm to ensure verification of 
nonproliferation agreements, lead civilian nuclear cooperation 
efforts, and monitor rogue actors.
    One such rogue actor is North Korea. Addressing this threat 
is one of the Trump administration's top priorities, and the 
East Asian and Pacific Affairs Bureau is at the forefront of 
implementing this administration's maximum pressure and 
engagement strategy.
    Ms. Susan Thornton, a career Foreign Service Officer, is 
the nominee to be Assistant Secretary for the EAP Bureau. 
Having served recently as the Acting Secretary, I know that Ms. 
Thornton is very well aware of a vast range of political and 
economic and security issues affecting U.S. national interests 
in the Asia Pacific.
    In addition, given her experience serving in Beijing, I 
know that Ms. Thornton recognizes that no country looms larger 
in the region, nor stands to have a bigger impact on U.S. 
national interests in the coming years, than China. While 
engagement with Beijing poses significant challenges, Ms. 
Thornton also will be tasked with efforts to strengthen U.S. 
relations with critical allies and partners in the region, 
including Japan and Vietnam.
    Our third nominee today is Frank Fannon, who has been 
nominated to be Assistant Secretary for Energy Resources. This 
bureau is responsible for policy development and implementation 
with respect to U.S. international security, energy security. 
Energy plays such an important role in our economy, and our 
national security depends on ensuring access to abundant, 
reliable, and affordable energy. With his extensive background 
working with the Senate Energy committee and working for 
various private-sector firms in the energy sector, Mr. Fannon 
is well qualified for this position.
    Today's nominees seek to take on responsibilities that are 
crucial to our national security on so many fronts around the 
world. We thank all of you for your willingness to be here, to 
serve our Nation in this regard. And look forward to your 
testimony.
    With that, I would like to turn to our distinguished 
Ranking Member, Bob Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for holding this 
hearing today.
    Before I comment on our witnesses, I need to comment on the 
administration's proposed foreign affairs budget for fiscal 
year '19, because, honestly, I find it to be stunningly 
irresponsible. A budget is a reflection of our priorities and 
our values, and an opportunity to commit resources to 
fulfilling a mission. It is often said, ``If you show me your 
budget, I will tell you our strategy.'' Well, if that is true, 
then the administration has a very bad strategy. Far from 
putting America first, the Trump administration's budget would 
put America last. This request would slash almost 30 percent of 
the FY17 enacted levels, undermining our leadership on a global 
stage and our ability to effectively serve the American people 
and promote our national security interests.
    Furthermore, the request runs counter to the very goals and 
ideals the administration seeks to champion, and those defined 
in its own National Security Strategy, which calls for robust 
diplomatic engagement and maintaining our position of global 
leadership.
    So, as you said, Mr. Chairman, last year we largely 
rejected that last budget. I think this one needs to be 
rejected, as well. And I will look forward to working with you 
and colleagues on the Appropriations committee to provide 
adequate funding for our diplomats, development officers, and 
front-line civilians working to promote American national 
security.
    Let me thank our nominees for their willingness to serve. 
And, in particular, I want to recognize the many years that 
Colonel Thompson and Ms. Thornton have spent in public service. 
For decades, one of the core objectives of U.S. foreign policy 
has been to limit, as much as possible, the spread of nuclear, 
biological, and chemical weapons. The success of our 
nonproliferation efforts has always depended upon gaining the 
cooperation of other states to legally binding treaties and 
agreements, U.N. Security Council resolutions, and bilateral 
cooperative efforts. We need effective United States leadership 
that inspires and encourages others to join us to meet these 
threats with a united coalition.
    Additionally, Colonel Thompson, if you are confirmed, your 
role as Under Secretary will put you in a unique position to 
strengthen State's ability to provide our allies and partners 
robust and effective security assistance while also ensuring 
that human rights and the protection of civilians are taken 
into account when providing such assistance.
    Ms. Thornton, in nominating you to serve as the Assistant 
Secretary for East Asia and the Pacific, it is my hope this 
means the President intends to listen to knowledgeable and 
sound advice on our policy towards the Asia-Pacific region. As 
a Pacific nation ourself, our national security policy must 
recognize that much of America's 21st-century political and 
economic future lies in the Asia-Pacific region, and it is 
imperative that we engage with the region, not pull away from 
it.
    Yet, the administration talks about the importance of a 
free and open Indo-Pacific region. His actions speak 
differently. While the administration talks about the 
importance of our alliances and partnerships, his actions call 
our commitments into question. The administration talks about 
how our principles are embedded in our policy, but it--actions 
undermines our values. And, while the administration talks 
about the challenge of a revisionist China, its actions seek to 
risk ceding the region to a strategic rival.
    The United States needs to have a strategic and values-
driven presence in the region that includes our military and 
the full range of American diplomatic tools and resources. Such 
an approach is necessary to deal with the wide range of 
challenges, including the crisis of a nuclear-armed North 
Korea, making clear our commitments to our allies and managing 
our relationship with China.
    Finally, any policy for a free and open Indo-Pacific region 
must have human rights and democracy at its core. For too long 
in the region, the United States has treated human rights as 
desirable, but dispensable. Instead, we should be using our 
values as a source of strength and comparative advantage over 
illiberal forces in the region.
    Mr. Fannon, I want to thank you for your--meeting with me 
in my office yesterday. I appreciate your willingness to serve. 
But, given the focus of your career, I want to explore some of 
the concerns that I expressed to you yesterday. You have been a 
forceful advocate for the fossil fuel and extractive 
industries, so I want to know how you will execute ENR's core 
objectives, which includes, quote, ``advising on energy issues 
as they related to, among others, pursuit of alternative energy 
and energy efficiency and greater transparency and 
accountability in the energy sector.'' I look forward to 
continuing to explore that conversation with you.
    Mr. Chairman, I have to--we are having a major debate and 
vote on the floor on DREAMers, and I am going to have to go for 
a few minutes to that. I have read all of the testimony, and I 
have read all the witnesses. I intend to be back for the 
questions, but I am going to have to excuse myself for a few 
minutes.
    The Chairman. Thank you. Absolutely.
    So, with that, if you would, if you could take about 5 
minutes to give an--some opening statements, there will be 
questions. And if you would do so in the order introduced, we 
would appreciate it. Again, thank you for being here.

STATEMENT OF COLONEL ANDREA L. THOMPSON, USA, RETIRED, OF SOUTH 
DAKOTA, NOMINEE TO BE UNDER SECRETARY OF STATE FOR ARMS CONTROL 
                   AND INTERNATIONAL SECURITY

    Colonel Thompson. Thank you, Mr. Chairman, Ranking Member 
Menendez, and distinguished members of this committee. It is an 
honor to be with you here today as President Trump's nominee 
for Under Secretary of State for Arms Control and International 
Security. I am humbled by this opportunity, with your approval, 
to serve in the administration and work with you, the White 
House, Secretary Tillerson, and the dedicated professionals of 
the State Department.
    I would like to take this opportunity to thank some very 
important people in my life. I am joined today by my incredible 
husband, David Gillian, and many dear friends. Thank you for 
your love and support.
    I would also like to thank my parents, Phil and Georgia 
Hanson, who are watching at home in South Dakota, and a special 
hello to my mother-in-law, Meg Gillian, and my grandfather, 
Dean Nelson, who is 92 years young.
    Finally, I would like to send recognition to my family and 
friends who could not be here today but have served as role 
models and mentors throughout my life. I am a proud South 
Dakotan, and it is the values and work ethic of those that I 
grew up with that always showed me what right looks like.
    I would also like to thank Senator Thune for his kind words 
and appreciation for representation of our great State.
    I had the privilege of serving this administration before 
as Vice President Pence's National Security Advisor. During my 
tenure, I worked with the NSC, members and staff of Congress, 
leaders across the Departments of State, Defense, Treasury, 
Commerce, and Energy, to name just a few. However, my 
background in international security and the importance of 
those relationships began years before, during my 28-year 
career as a military officer. From leading troops in Iraq, 
Afghanistan, Bosnia, Germany, Central America, and other 
locations across the globe, I saw firsthand the importance of 
relationships with our allies and partners, and the critical 
need for a strong and steadfast security structure. I have seen 
both the successes and failures of our arms-control policy. I 
have been on the receiving end when diplomacy fails. If 
confirmed, I commit to you that I will always place the safety 
and security of the American people first.
    I am also fully cognizant of the profound responsibilities 
of senior leadership. During my military service and in the 
private sector, leadership was my legacy. Bringing people 
together with different strengths and viewpoints to work 
towards a common goal is an exciting challenge. The State 
Department's arms control and international security team of 
over 600 talented men and women are committed to advancing our 
U.S. policies and protecting its people. They are the backbone 
of our Nation's most important policy decisions, negotiations, 
and treaties. These professionals cover arms control and 
international security issues, nonproliferation matters, 
including missile, nuclear, chemical, biological, and 
conventional weapons proliferation, export control policies, 
and foreign assistance programs, all of which are of vital 
national security interest to the United States.
    I am excited about the opportunity to lead this team, if 
confirmed. I also look forward to working with my colleagues at 
the State Department, other U.S. Government agencies, Congress, 
and our international community.
    This administration has clearly set a high priority for our 
nuclear posture, arms control, nonproliferation, and political/
military policies. The President and Vice President's 
commitment in these areas has been, and will remain, steadfast.
    The recent review of our nuclear and missile defense 
postures offer critical opportunities to outline the vision of 
how this administration will work to ensure our security in the 
face of the world's most destructive weapons. If confirmed, I 
look forward to regularly consulting and engaging our allies 
and partners both at home and abroad on these important 
deterrence, strategic stability, and defense issues.
    The threat of WMD proliferation continues, and the role of 
the United States and its leadership to counter that threat 
remain as great as ever. By continuing to work with our allies 
and the international community, we send a clear message to 
those who violate U.N. Security Council resolutions, 
established treaties and agreements. We must continue to put 
maximum pressure on those regimes through diplomatic and 
economic sanctions, including robust implementation of U.S. 
sanctions legislation. Along with our partners and allies, we 
must continue to improve upon our capabilities, strengthen our 
resolve, and force these regimes to change their behavior. Much 
has been done, but there is much more to do. As our enemies 
adapt and technologies evolve, so must we. I appreciate the 
work that has been done by this committee. And, if confirmed, I 
welcome the opportunity to collaborate with all of you in that 
endeavor.
    As one of its first legislative decisions over two 
centuries ago, our Congress prescribed an oath establishing a 
bond between the people of this great Nation and those who have 
committed themselves to service to the American people. I first 
took this oath 30 years ago. This is the same oath that you 
have taken. It would be my highest honor to again serve the 
American people and support and defend the Constitution of the 
United States.
    Mr. Chairman, Mr. Ranking Member, and members of this 
committee, I am honored to be considered for this critical 
appointment. Thank you for the opportunity to appear before 
you. I welcome your comments and your questions.
    Thank you.
    [Colonel Thompson's prepared statement follows:]


                Prepared Statement of Andrea L. Thompson

    Mr. Chairman, Ranking Member Menendez, distinguished members of the 
committee, it is an honor to be with you today as President Trump's 
nominee for Under Secretary of State for Arms Control and International 
Security. I am humbled by this opportunity--with your approval--to 
serve in the administration and work with you, the White House, 
Secretary Tillerson and the dedicated professionals at the State 
Department.
    I would like to take this opportunity to thank some very important 
people in my life. I'm joined today by my incredible husband, David 
Gillian, and many dear friends. Thank you for your love and support. 
I'd also like to thank my parents who are watching at home in South 
Dakota, and a special hello to my mother-in-law, Meg Gillian, and my 
grandfather, Dean Nelson, who's 92 years young. Finally, I'd like to 
send recognition to my family and friends who couldn't be here today 
but have served as role models and mentors throughout my life. I'm a 
proud South Dakotan and it's the values and work ethic of those I grew 
up with that always showed me what right looks like. Thank you Senator 
Thune for your kind words and your representation for our great state.
    I had the privilege of serving this administration before, as Vice 
President Pence's National Security Advisor. During my tenure, I worked 
with the NSC, members and staff of Congress, leaders across the 
Departments of State, Defense, Treasury, Commerce and Energy to name 
just a few. However my background in international security and the 
importance of those relationships began years before during my 28 year 
career as a military officer. From leading troops in Iraq, Afghanistan, 
Bosnia, Germany, Central America, and other locations across the globe, 
I saw firsthand the importance of relationships with our allies and 
partners and the critical need for a strong and steadfast security 
structure. I've seen both the successes and failures of our arms 
control policies. I've been on the receiving end when diplomacy fails. 
If confirmed, I commit to you that I will always place the safety and 
security of the American people first.
    I am also fully cognizant of the profound responsibilities of 
senior leadership. During my military service and in the private 
sector, leadership was my legacy. Bringing people together, with 
different strengths and viewpoints, to work towards a common goal is an 
exciting challenge. The State Department's Arms Control and 
International Security team of over 600 talented men and women are 
committed to advancing our U.S. policies and protecting its people. 
They are the backbone of our Nation's most important policy decisions, 
negotiations and treaties. These professionals cover arms control and 
international security issues, nonproliferation matters, including 
missile, nuclear, chemical, biological and conventional weapons 
proliferation, export control policies, and foreign assistance 
programs. All of which are of vital national security interest to the 
United States. I am excited about the opportunity to lead this team, if 
confirmed. I also look forward to working with my colleagues at the 
State Department, other U.S. Government agencies, Congress and our 
international community.
    The administration has clearly set a high priority for our nuclear 
posture, arms control, nonproliferation and political-military 
policies. The President and Vice President's commitment in these areas 
has been and will remain steadfast. The recent review of our nuclear 
and missile defense postures offer critical opportunities to outline 
the vision of how this administration will work to ensure our security 
in the face of the world's most destructive weapons. If confirmed, I 
look forward to regularly consulting and engaging our allies and 
partners both at home and abroad on these important deterrence, 
strategic stability, and defense issues.
    The threat of WMD proliferation continues, and the role of the 
United States and its leadership to counter that threat remain as great 
as ever. By continuing to work with our allies and the international 
community, we send a clear message to those who violate U.N. Security 
Council resolutions, established treaties and agreements. We must 
continue to put maximum pressure on those regimes through diplomatic 
and economic sanctions, including robust implementation of U.S. 
sanctions legislation.
    Along with our partners and allies, we must continue to improve 
upon our capabilities, strengthen our resolve, and force these regimes 
to change their behavior.
    Much has been done but there is much more to do. As our enemies 
adapt and technologies evolve, so must we. I appreciate the work that's 
been done by this committee and if confirmed, I welcome the opportunity 
to collaborate with all of you in that endeavor.
    As one of its first legislative decisions over two centuries ago, 
our Congress prescribed an oath, establishing a bond between the people 
of this great Nation and those who have committed themselves to service 
to the American people. I first took this oath 30 years ago. The same 
oath all of you have taken. It would be my highest honor to again serve 
the American people, and support and defend the Constitution of the 
United States. Mr. Chairman, Mr. Ranking Member and members of the 
committee, I am honored to be considered for this critical appointment. 
Thank you for the opportunity to appear before you today. I welcome 
your comments and questions.


    The Chairman. Thank you very much.
    Ms. Thornton.

 STATEMENT OF SUSAN A. THORNTON, OF MAINE, A CAREER MEMBER OF 
   THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AN ASSISTANT SECRETARY OF STATE FOR EAST ASIAN 
                      AND PACIFIC AFFAIRS

    Ms. Thornton. Chairman Corker, Ranking Member Menendez, and 
members of the committee, it is my great honor to appear here 
today as the President's nominee to serve as Assistant 
Secretary of State for East Asia and Pacific Affairs.
    I have been privileged to serve this great country of ours 
and to have worked with so many dedicated and talented public 
servants over the course of my Foreign Service career. I would 
like to thank the President and Secretary Tillerson for placing 
their trust and confidence in me. If confirmed, I pledge to 
this committee that I will devote my full energies to advancing 
America's interests in the East Asia-Pacific region.
    I would like to take the opportunity here to thank my 
family: my husband, Joe, and daughter, Kate, who are here with 
me today; my two older children, Ben and Anne, who both went to 
three different high schools as we moved around from place to 
place; and my mom and dad. They have been an incredible support 
network for me, and have all sacrificed a lot to get me here. I 
want to express my profound gratitude to all of them.
    I joined the United States Foreign Service more than 25 
years ago now, and have served five different administrations 
in postings from Beijing to Moscow, Ashgabat to Chengdu, and, 
of course, in Washington. I have worked on issues from 
nonproliferation to trade agreements to human rights and many 
other important issues. I have never ceased to appreciate how 
lucky I am to have this wonderful career.
    Several of my former colleagues in this position have 
reached out to me in recent weeks to make sure that I knew that 
this was the best job in the world. And I am certainly honored 
and humbled to have the prospect of joining their company, if 
confirmed.
    There is no part of the world that will be more 
consequential for our children's future than the Asia-Pacific 
region. With one-third of the world's population, one-third of 
the global GDP, and some of the largest and most dynamic 
economies in the world, it is clear that the Asia-Pacific will 
be key to America's future well-being and our prosperity. We 
exported over $400 billion in goods to EAP countries in 2017, 
which is up 160 percent from a decade ago.
    This region is also home to five U.S. treaty allies with 
over 80,000 U.S. troops living, training, and operating 
alongside their partner host-country forces to undertake a 
range of missions, from counterterrorism to search-and-rescue 
to disaster relief, and others. It is crucial for U.S. 
interests that this area remains stable and prosperous.
    But, there are very real security and economic challenges 
in the Asia-Pacific region, including the menacing threat of 
North Korea, of course, the rise of an authoritarian China, and 
the spread of terrorism and extremism. Backsliding on 
democracy, governance, corruption, and human rights is also 
undermining prospects for stability and growth in some 
countries.
    Dealing effectively with these challenges in this crucial 
part of the world requires the strength and resolve of U.S. 
diplomatic leadership. And this administration's approach to 
the Asia-Pacific puts our strong and active leadership at the 
forefront of international efforts to meet these challenges.
    On North Korea, the Trump administration has mobilized the 
entire international community through our campaign of global 
maximum pressure to come together to face down Kim Jong Un's 
attempts to develop his nuclear and ballistic missile 
capabilities. The U.N. Security Council unanimously passed four 
sanctions resolutions last year, and additional worldwide 
efforts to further isolate North Korea diplomatically and 
economically make clear that we will not accept a nuclear North 
Korea. Our preference is to achieve denuclearization of the 
Korean Peninsula through a diplomatic settlement, but we will 
reach this goal, one way or another.
    With regards to China, as this administration has made 
clear, the United States wants a productive relationship with 
China, and we must work to manage and resolve differences. We 
have been equally clear, however, that we will not abide 
Chinese attempts to displace the United States in Asia, to 
coerce countries in the region, and that we will not be taken 
advantage of. If the international system that has enabled 
China's rise is to continue, then rules and standards must be 
observed, and countries must not be bullied or threatened, but 
treated as equal players.
    The administration, under President Trump's leadership, is 
working to also expand and deepen partnerships throughout the 
region via our Indo-Pacific strategy. We also continue to 
prioritize work in APEC to promote high standards, fair trade, 
and to support ASEAN-centered regional architecture, which 
underpins East Asian peace and security. The United States is a 
Pacific power, and will remain committed to this region's 
success.
    In short, I am humbled to be considered for this important 
position, and, if confirmed, I look forward to working with you 
to further the prospects of the United States in this part of 
the world.
    Thank you very much.
    [Ms. Thornton's prepared statement follows:]


                  Prepared Statement of Susan Thornton

    Chairman Corker, Ranking Member Menendez, members of the committee, 
it is my great honor to appear here today as the President's nominee to 
serve as Assistant Secretary of State for East Asia and Pacific 
Affairs. I have been privileged to serve this great country of ours, 
and to have worked with so many dedicated and talented public servants 
over the course of my Foreign Service career. I would like to thank the 
President and Secretary Tillerson for placing their trust and 
confidence in me. If confirmed, I pledge to this committee that I will 
devote my full energies to advancing America's interest in the East 
Asia-Pacific region.
    I'd like to take this chance to thank my family, my husband Joe and 
daughter Kate, who are here today, my two older children Ben and Anne, 
who both went to three different high schools as we moved from place to 
place, and my Mom and Dad. They have been an incredible support network 
and have all sacrificed a lot to get me here. I want to express my 
profound gratitude to all of them.
    I joined the United States Foreign Service more than 25 years ago 
now, and have served five different administrations in postings from 
Beijing to Moscow, Ashgabat to Chengdu, and of course Washington. I 
have worked on issues from non-proliferation to trade agreements to 
human rights, and many important issues in between and have never 
ceased to reflect on how lucky I am to have this wonderful career. 
Several of my former colleagues in this position have reached out to me 
in recent months and all wanted to make sure I knew that this is the 
best job in the world. I am certainly honored and humbled to have the 
prospect of joining their company, if confirmed.
    There is no part of the world that will be more consequential for 
our children's future than the Asia-Pacific. With one-third of the 
world's population, one-third of global GDP, and some of the largest 
and most dynamic economies in the world, it is clear that the Asia-
Pacific region will be key to America's future well-being and 
prosperity. We exported over $400 billion in goods to EAP countries in 
2017, which is up 160 percent from a decade ago. This region is also 
home to five U.S. treaty allies with over 80,000 U.S. troops living, 
training, and operating alongside their partner host country forces to 
undertake a range of missions, including search and rescue, disaster 
relief, and counterterrorism. It is crucial for U.S. interests that 
this area remains stable and prosperous.
    But there are very real security and economic challenges in the 
Asia-Pacific region, including the menacing threat of North Korea, the 
rise of an authoritarian China, and the spread of terrorism and 
extremism. Although the region has enjoyed peace and growing prosperity 
for years, the threat from North Korea continues to increase, tensions 
and extremism are on the rise, and the export-led model that 
underpinned East Asia's stunning growth is no longer viable. We must 
insist on fair and reciprocal market access, if we are to sustain the 
global trading system. Backsliding on democracy, governance and 
corruption, and human rights is also undermining prospects for 
stability and growth in some countries.
    Dealing effectively with these challenges in this crucial part of 
the world requires the strength and resolve of U.S. diplomatic 
leadership, and this administration's approach to the Asia-Pacific puts 
our strong and active leadership at the forefront of international 
efforts to meet these challenges.
    On North Korea, the Trump administration has mobilized the entire 
international community, through our campaign of global maximum 
pressure, to come together to face down Kim Jong Un's attempts to 
develop his nuclear and ballistic missile capabilities. The U.N. 
Security Council unanimously passed four sanctions resolutions last 
year, and additional worldwide efforts to further isolate North Korea 
diplomatically and economically make clear that we will not accept a 
nuclear North Korea. Our preference is to achieve denuclearization of 
the Korean Peninsula through a diplomatic settlement, but we will reach 
this goal one way or another.
    With regards to China, as this administration has made clear, the 
United States wants a productive relationship with China, and we must 
work to manage and resolve differences. We have been equally clear, 
however, that we will not abide Chinese attempts to displace the United 
States in Asia, to coerce countries in the region and that we will not 
be taken advantage of. If the international system that has enabled 
China's rise is to continue, then rules and standards must be observed 
and countries must not be bullied or threatened, but treated as equal 
players.
    The administration, under President Trump's leadership, is working 
to expand and deepen partnerships throughout the region via our Indo-
Pacific strategy, to ensure that countries have support to make their 
own decisions and don't feel pressured to take on obligations that 
undermine good governance or long-term growth. We also continue to 
prioritize work in APEC to promote high-standards and fair trade and to 
support ASEAN-centered regional architecture, which underpins East 
Asian peace and security. The United States is a Pacific power and will 
remain committed to this region's success.
    In short, I am humbled to be considered for this important position 
and, if confirmed, I look forward to working with you to further the 
prospects of the United States in this part of the world. Thank you 
very much.


    The Chairman. Thank you.
    Mr. Fannon.

 STATEMENT OF FRANCIS R. FANNON, OF VIRGINIA, NOMINEE TO BE AN 
       ASSISTANT SECRETARY OF STATE FOR ENERGY RESOURCES

    Mr. Fannon. Thank you, Senator Gardner, for your gracious 
introduction.
    Chairman Corker and distinguished members of the committee, 
I am honored to appear before you as the President's nominee to 
serve as Assistant Secretary of State for Energy Resources. I 
am thankful to President Trump and Secretary Tillerson for the 
confidence they have placed in me to undertake this critical 
role.
    I am proud that members of my family join me today. I would 
like to introduce my wife, Mercer, whose partnership and 
support are foundational to any success in career and life I 
have--may have been fortunate enough to achieve. I am also 
delighted that my two eldest daughters, Madeline and Charlotte, 
are here today, and suspect that our 23-month-old, Phoebe, is 
watching from home with my mother-in-law, Marsha Planting.
    I would like to acknowledge my parents, Frank and Susana 
Fannon, who are watching the live stream. Through their 
sacrifices, they taught me that the American Dream is very much 
alive, that, with dedication and effort, anyone can achieve 
great things, and that success is not determined from where you 
are from, but where you choose to go.
    My grandparents' mother and her sisters immigrated to the 
United States from Argentina in 1969. They left everything 
behind, in hopes to realize a better life, an aspirational life 
that only America could offer. My personal family history and 
experience have shaped me in many ways, and gave me a personal 
appreciation for other cultures and nations.
    I came to Washington without contacts or a job, but with 
the unwavering desire to serve. After working for the late 
Senator Domenici and home State Senator Ben Nighthorse 
Campbell, I realized my greatest professional privilege, until 
this day, to serve as Energy Counsel to the Senate Committee on 
Environment and Public Works. While at EPW, I helped the 
committee with energy issues and drafted provisions of the 
bipartisan Energy Policy Act of 2005. That legislation helped 
to unleash American innovation, and set the conditions for 
today's energy abundance.
    Thanks to our resource wealth, American energy plays an 
ever more vital role in American diplomacy. The U.S. can more 
freely confront oppressive and illegitimate regimes now that 
American production buffers global markets against supply 
shocks. And American energy and technology strengthens the 
economies of partners who share our values.
    In the private sector, I sought to leverage that abundance 
to advance American values in sustainable operations across 
five continents. I worked with and led cross-functional, 
globally located, and culturally diverse teams. I saw firsthand 
how energy and resource projects can catalyze development, and 
the benefits of constructive government engagement.
    In this capacity, I worked with the Department on multiple 
energy projects, and can attest that its dedicated foreign and 
civil service experts serve the country with great distinction. 
Given the rapidly changing energy landscape, the dynamic 
foreign policy environment, and the way in which energy 
overlaps with foreign policy, it is critical to have a strong, 
informed, and enabled energy bureau, or ENR.
    If confirmed, I hope to work with the committee by focusing 
on three objectives: energy security through diplomacy, 
governance, and electricity for all.
    Secretary Tillerson has stated that enhancing energy 
security by ensuring access to affordable, reliable, diverse, 
and secure supplies of energy is fundamental to national 
security. ENR is uniquely positioned to lead American 
diplomatic energy security interests, in coordination with 
other agencies. If confirmed, I pledge to promote energy 
diplomacy as a means to foster collaboration among nations and 
oppose the weaponization of energy for geopolitical ends.
    Developing countries may have considerable resource 
endowments, but lack institutional frameworks and transparent 
rule of law. U.S. companies often view these aboveground 
conditions as prohibitive risk profiles. Yet, they also make 
them prime targets for state-owned enterprises hostile to 
liberal democratic values. ENR's governance programs and--
support transparency reforms, reduce potential for 
exploitation, and advance U.S. energy security objectives.
    According to the International Energy Agency, 1.2 billion 
people lack access to electricity, and 2.7 billion lack clean 
cooking facilities. Energy poverty are development and 
geopolitical security challenges. A country's inability to 
provide reliable electricity is indicative of broader capacity 
limitations and a precursor to domestic unrest. If confirmed, I 
look forward to identifying ways that the Bureau can build and 
broaden its work in this area.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to be here today. I look forward to your questions.
    [Mr. Fannon's prepared statement follows:]

                Prepared Statement of Francis R. Fannon

    Thank you, Senator Gardner for your gracious introduction.
    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, I am honored to appear before you as the President's 
nominee to serve as Assistant Secretary of State for Energy Resources. 
I am thankful to President Trump and Secretary Tillerson for the 
confidence they have placed in me to undertake this critical role.
    I am proud that members of my family joined me today. I would like 
to introduce my wife, Mercer, whose partnership and support are 
foundational to any success in career and life I have been fortunate 
enough to achieve. I am delighted that my two eldest daughters, 
Madeline and Charlotte, are here today, and suspect that our 23-month-
old, Phoebe, is watching from home with my mother-in-law, Marsha 
Planting. Seated next to Mercer are my aunt and uncle, Isabel and 
Richard Lynch.
    I would like to acknowledge my parents, Frank and Susana Fannon who 
are watching the livestream. Through their sacrifices, they taught me 
that the American dream is very much alive. That with dedication and 
effort, anyone can achieve great things, and that success is not 
determined by where you are from, but where you choose to go.
    My grandparents, mother, and her sisters immigrated to the United 
States from Argentina in 1969. They left everything behind in hopes to 
realize a better life, an aspirational life that only America could 
offer. My personal family history and experience have shaped me in many 
ways and gave me a personal appreciation for other cultures and 
nations.
    I came to Washington without contacts or a job, but with the 
unwavering desire to serve. After working for the late Senator Pete V. 
Domenici and home state Senator Ben Nighthorse Campbell, I realized my 
greatest professional privilege until this day, to serve as energy 
counsel to the Senate Committee on Environment & Public Works. While at 
EPW I helped the committee with energy issues and drafted key 
provisions of the bipartisan Energy Policy Act of 2005. That 
legislation helped to unleash American innovation and set the 
conditions for today's energy abundance.
    Thanks to our resource wealth, American energy plays an ever more 
vital role in American diplomacy. The U.S. can more freely confront 
oppressive and illegitimate regimes now that American production 
buffers global markets against supply shocks, and American energy and 
technology strengthens the economies of partners who share our values.
    In the private sector, I sought to leverage that abundance to 
advance American values and sustainable operations across five 
continents. I worked with and led cross-functional, globally located, 
and culturally diverse teams. I saw firsthand how energy and resource 
projects can catalyze development, and the benefits of constructive 
government engagement.
    In this capacity, I worked with the Department on multiple energy 
projects, and can attest that its dedicated foreign and civil service 
experts serve the country with great distinction. Given the rapidly 
changing energy landscape, the dynamic foreign policy environment, and 
the way in which energy overlaps with foreign policy, it is critical to 
have a strong, informed and enabled Energy Bureau or ENR.
    If confirmed, I hope to work with the Committee on by focusing on 
three objectives--Energy Security through Diplomacy, Governance, and 
Electricity for All.
    Secretary Tillerson has stated that ``enhancing energy security by 
ensuring access to affordable, reliable, diverse, and secure supplies 
of energy is fundamental to national security objectives.'' ENR is 
uniquely positioned to lead American diplomatic energy security 
interests, in coordination with other agencies. If confirmed, I pledge 
to promote energy diplomacy as a means to foster collaboration among 
nations and oppose the weaponization of energy for geopolitical ends.
    Developing countries may have considerable resource endowments, but 
lack institutional frameworks and transparent rule of law. U.S. 
companies often view these above-ground conditions as prohibitive risk 
profiles. Yet, they are prime targets for state-owned enterprises 
hostile to liberal democratic values. ENR's governance programs can 
support transparency reforms, reduce potential for exploitation, and 
advance U.S. energy security objectives.
    According to the International Energy Agency, 1.2 billion people 
lack access to electricity and 2.7 billion lack clean cooking 
facilities. Energy poverty are development and geopolitical security 
challenges. A country's inability to provide reliable electricity is 
indicative of broader capacity limitations, and a precursor to domestic 
unrest. If confirmed, I look forward to identifying ways that the 
Bureau can build and broaden its work in this area.
    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to be here today. I look forward to your 
questions.


    The Chairman. Thank you.
    I typically defer. I may ask one question of Susan 
Thornton. I know we had a nice meeting last night, and I 
appreciate you coming by so late.
    I had a debrief, I guess, with Senator Menendez a couple of 
days ago, from Vice President Pence relative to some of the 
discussions that took place in South Korea. It is my sense that 
the South Koreans, the Japanese, and others are joined at the 
hip with us as it relates to North Korea. It is my sense that 
we are certainly open to having meetings with North Korea, as 
long as the subject matter is one thing, and that is the 
denuclearization of the Peninsula, period. And it is my 
understanding that, while discussions like that may take place 
at some point in the future, it will take place on the basis 
that we are going to continue to clamp down, working with 
others, to isolate them even further, put tougher sanctions in 
place, that there will be no reprieve to have a discussion.
    I am wondering if you would verify that to be your 
thinking, and what to do add to that in any regard.
    Ms. Thornton. Thank you very much, Senator. And thank you 
very much for the meeting that we had yesterday.
    I think that the policy that we have in place, that was put 
in place at the very beginning of the administration, the 
maximum global pressure campaign that envisions increasing 
pressure through an international coalition in order to change 
the calculus of the North Korean regime, is still very much in 
place. We have built a very solid international coalition, in 
lockstep with our allies and partners. We have brought onboard 
many countries in the world that would not normally be at the 
center of this effort. And we are continuing to do that. We 
envision the pressure continuing to ramp up. There will not be 
any letup on pressure. We are leaving the door open to 
engagement, as you have rightly stated, and we want that 
engagement to consist of one issue, which is denuclearization, 
our overarching goal for this policy.
    The Chairman. Tell me what it is--why is it that you think 
we have been able to put together this coalition of people to 
put the most pressure ever on North Korea right now?
    Ms. Thornton. Well, I think there are two aspects to that. 
One is that the threat from North Korea through the testing 
that the Kim Jong Un regime has done has become much more 
urgent and much more serious. And I think the other issue is 
the administration's resolve, frankly, and determination to 
increase the pressure, tap every possible outlet for putting 
that pressure on, and for putting a lot of diplomatic shoe 
leather into gathering this coalition. We are sending people to 
all corners of the globe to talk to governments about what they 
can do to further squeeze the North Korean regime, 
diplomatically and economically, and isolate them.
    The Chairman. And I want to reserve the rest of my time, 
but who is it that is leading the coordination of this effort? 
Who is the, sort of, center driving force of this coordinated 
effort?
    Ms. Thornton. Well, we have a very clearly coordinated 
interagency policy committee working on the overall North Korea 
policy, which generated the March 2017 review and policy that 
we are following. The State Department is leading the 
diplomatic effort to undertake maximum global pressure 
campaign, but it is complemented by efforts from our DOD 
colleagues, from our intelligence colleagues, and a lot of 
other people around the U.S. Government.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I thank all three of our nominees for their willingness to 
serve their country.
    Ms. Thornton, I think the Assistant Secretary for East 
Asian and Pacific is a dream job, so I am glad that you had 
that enthusiasm. And your service to our country--career 
service--is very much noted. It gives you, though, the 
responsibility to coordinate our policies in that region. And I 
want to just focus, for one moment, on your commitment on human 
rights.
    East Asia and Pacific has significant challenges in good 
governance, human rights, corruption, trafficking, you name it. 
And, on the bilateral relationships at the missions, a lot of 
times these issues get sort of pushed to the side because of 
the urgency of a particular security issue at the time. And it 
is the responsibility of the position you have been nominated 
to to make sure they never forget the values that this Nation 
stands for.
    So, in North Korea, yes, the nuclear confrontation is our 
challenge, but you have a country that is at the bottom on 
human rights. In China, you have a country that made some 
progress, is now moving in the wrong direction on protecting 
the human rights of its citizens. In Burma, it has exploded 
into a full-out crisis with the Rohingya Muslims. Lives are 
in--at risk. And then, our traditional allies, the Philippines 
has--you have seen where the extrajudicial killings have taken 
place.
    So, will you just reaffirm to this committee your 
commitment that human rights will be the priority, and that you 
will, in your contact with each of our missions in--under your 
supervision, remind them that you expect progress to be made on 
the human rights front, and share that information with this 
committee?
    Ms. Thornton. Yes. Thank you, Senator, for the question.
    But, yes, I think that, certainly, standing up for 
democracy, human rights, clean governance is part of who we 
are. It is part of our foreign policy, an integral part. And I 
think it needs to be part of every conversation that we have 
with governments around the world, whether it is on 
nonproliferation, energy issues, or trade issues. Human rights 
come into everything that the United States does with partner 
governments overseas. And I think--I will certainly commit to 
you that that will be a standard that I will bear, and that I 
will continue to communicate with the committee on this.
    Senator Cardin. And one area you could specifically help us 
with is that--I have been in communication with our Ambassadors 
or Chief of Missions of all the countries, asking them to reply 
to a commitment they made during their nomination process, to 
keep this committee informed on their human rights agenda. My 
understanding is that sometimes those letters have a long way 
of getting to me, because they are in the bureaucracy of the 
State Department. Will you make sure that we get timely 
responses to those inquiries?
    Ms. Thornton. Yes.
    Senator Cardin. Thank you.
    Ms. Thompson, there are a lot of questions I am going to--I 
would like to ask you about. Let me just go to the basics. Let 
us start with civil nuclear--123 agreements, gold standards. 
Are you committed to maintaining the gold standard, wherever we 
can, in any future 123 agreements?
    Colonel Thompson. Thank you, Senator. And thank you for 
making the time last week for our office call.
    I commit to you that I will always represent, in 
negotiations for the United States, the highest standard 
possible for the safety and security, first and foremost, for 
the American people, but to get the highest standard possible. 
I think the community recognizes that the agreement with the 
UAE is set as a gold standard, and would look to achieve that 
standard. Again, I--there are ongoing dialogues that I have not 
been privy to, but once--if confirmed, once fully briefed, I 
will look forward to continue that dialogue with you, with this 
committee, to ensure we get the highest standard possible.
    Senator Cardin. In our conversation, I appreciated that we 
covered a lot of issues, including INF and the New START. And 
just to put on the record, assuming Russia is in compliance 
with the New START agreements, it is--are we committed to 
making sure the United States also complies and stays in the 
New START agreement?
    Colonel Thompson. We are, sir. It was a very positive sign 
last week, with both parties making the central limits to the 
New START Agreement. We have a few years to assess for the 
extent with that, but a very promising sign, based on last 
week. It still needs final verification, but I look forward to 
continuing to see the progress of that treaty, and, if 
confirmed, will continue to uphold those standards.
    Senator Cardin. Mr. Fannon, I want to, first, thank you for 
your support of 1504 and the communication with the SEC in 
regards to transparency within the extractive industries. We 
very much appreciated your leadership on that issue.
    As I understand it, you recognize the threat of foreign 
interest on energy. We just issued a report on Russia using 
energy as a weapon of war. The Nord Stream 2--I do not know if 
we have official position opposing it, but we would expect that 
that is a major area where we could minimize Russia's impact by 
opposing a Nord Stream 2. Do you agree?
    Mr. Fannon. Yes, Senator. In fact, my understanding is, 
Secretary Tillerson has publicly raised his--voiced his strong 
opposition to Nord Stream 2. And, if confirmed, I would 
continue to advance alternate ways to lessen the 
vulnerabilities that Europe has from the Russian gas 
dependence.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And again, thanks to all of you for your service.
    Ms. Thornton, thank you very much for the time yesterday to 
have a conversation about goals and objectives in Asia. We have 
been, as we talked about--Senator Markey and I are working on 
the North Korea issues, developing a comprehensive Asia 
strategy, something that would focus on three things: economic 
strategy in Asia, a national security strategy in Asia, and a 
rule-of-law strategy in Asia. More than just a 4-year or 8-year 
outlook of any presidency, it is important that we have a long-
term strategy in the United States that gives us a generational 
view in Asia.
    As you mentioned, a third, a third, a third--GDP, 
population--but soon to have one-half of global GDP, one-half 
of global population, five of the seven defense treaties, so--
and largest armies--and some of the largest standing armies in 
the world all concentrated in Asia. So, we have got to get this 
right.
    Do you believe it is important that we have a long-term 
Asia strategy?
    Ms. Thornton. Thank you, Senator. And thank you, again, for 
the time yesterday.
    Yeah, I think it is--it is important that we keep in mind 
our long-term interests. They are certainly enduring. And I 
think we need to have a strategy that matches that. I think 
that the President's Indo-Pacific strategy that was announced 
in November in Da Nang, Vietnam, is looking at all of the 
issues, the pillars that you just mentioned on diplomatic and 
political, on security, and on economic, and also on the rule 
of law and governance issues. So, I think it is very critical 
that we keep in mind what our long-term goals are, and adjust 
our strategy----
    Senator Gardner. Thanks. And will you commit me--with--
commit to me to work with us on this strategy and this 
legislation?
    Ms. Thornton. Yes.
    Senator Gardner. Thank you.
    Turning to North Korea, the goal of complete verifiable, 
irreversible denuclearization remains the absolute commitment 
of this administration. Is that correct?
    Ms. Thornton. Yes.
    Senator Gardner. There is no other strategy or device, 
other than, right now, our application of maximum pressure, 
both economically and diplomatically, correct?
    Ms. Thornton. Correct.
    Senator Gardner. Would you continue to work with me, this 
committee, and Senator Markey on sanctions legislation to make 
sure that we apply that maximum pressure?
    Ms. Thornton. Yes. If confirmed, I commit to work with you 
on all of that.
    Senator Gardner. And I hope that you will continue to 
support appropriate sanctions on, not only North Korean 
entities, but also third-party entities that are enabling and 
empowering the North Korean regime, including those out of 
China?
    Ms. Thornton. Yes.
    Senator Gardner. Thank you.
    And, when it comes to China, the National Security Strategy 
states--just released--``China and Russia challenge American 
power, influence, and interests, attempting to erode American 
security and prosperity. China seeks to displace the United 
States in the Indo-Pacific region, expand the reaches of its 
state-driven economic model, and reorder the region in its 
favor. China is using economic inducements and penalties, 
influence, operations, and implied military threats to persuade 
other states to heed its political and security agenda.'' Do 
you agree with those statements?
    Ms. Thornton. Yes.
    Senator Gardner. What policy should the United States 
pursue to counter China's role in the Indo-Pacific region?
    Ms. Thornton. Well, I think we have to, first and foremost, 
deepen and expand our partnerships and our alliances in the 
region, and do, in some form or other, similar to what we are 
doing in the case of North Korea, which is, bring together 
like-minded countries to promote the rules-based order, to push 
back on bad behavior, and to insist that countries in the 
region avoid and refrain from coercive tactics, bullying, and 
that they abide by a regime where all countries have an equal 
say in their decisionmaking.
    Senator Gardner. Do you believe China will continue its 
efforts to militarize the South China Sea?
    Ms. Thornton. I think they will try.
    Senator Gardner. And what is our response appropriately to 
be?
    Ms. Thornton. Well, I think we need to use all tools that 
we have at our disposal. We have diplomatic tools at our 
disposal. We are using our freedom-of-navigation operations to 
push back on excessive maritime claims in the region. And we 
are also, you know, using our coalitions and support of 
partners in the region to push back against Chinese behavior.
    Senator Gardner. And, during your time in the Foreign 
Service, which developments in the U.S.-China relationship have 
you seen that have most disappointed you?
    Ms. Thornton. I think that, in the U.S.-China relationship, 
there has been, you know, a lot of hope placed in the reform 
process in China. So, I think it is quite disappointing to see 
the backsliding on reforms, both economic and also the--
certainly the political atmosphere in China tightening, and 
repression for individual freedoms increasing in recent years.
    Senator Gardner. And you do--do you believe, right now, 
that the United States is doing enough to pressure China on 
behavior ranging from continued cyberintrusions of U.S. 
corporations to violations of human rights to militarization 
through its expansion--expansive activities, the One Belt, One 
Road?
    Ms. Thornton. Well, I think we are doing a lot to push back 
on all of that, but I think we are looking at doing more. And I 
think that is appropriate.
    Senator Gardner. What does a ``free and open Indo-Pacific'' 
mean to you?
    Ms. Thornton. To me, that means open access for--to global 
commons for all countries, open, sort of, trade and trade 
lanes, and a continuation of rules-based systems that allow all 
countries to participate on an equal footing in that region.
    Senator Gardner. Thanks.
    Mr. Chairman, thank you.
    The Chairman. Thank you. Thank you very much.
    Senator Merkley.
    Senator Merkley. Thank you.
    And let me begin with Mr. Fannon. Welcome. And Germany is 
considering a massive LNG project, called Nord Stream, that 
would essentially make Germany's economy dependent on Russia 
for its--sizable share of its energy for the generation to 
come. Do we have strategic concerns about that type of 
dependence?
    Mr. Fannon. Thank you for the question, Senator. And thank 
you for taking the time to visit with me yesterday.
    Absolutely. My understanding, the U.S. has publicly opposed 
it. Secretary Tillerson has opposed it repeatedly. It 
highlights the dependency on--of Europe on--further 
vulnerability on Russian gas. And the United States position 
is--my understanding, is strongly to oppose that pipeline.
    Senator Merkley. Thank you. Thank you very much.
    And, Ms. Thompson, in August of last year, President Moon 
Jae-in said the U.S. has agreed not to take any military action 
against North Korea without first getting South Korea's 
approval. And General Dunford responded that South Korea is an 
ally, and everything we do in the region is in the context of 
our alliance. Will we pay significant attention to South 
Korea's position in regards to potential military strikes on 
North Korea?
    Colonel Thompson. Thank you for that question, Senator. And 
thank you for making the time yesterday.
    I think, particularly in the region, we have strengthened 
our relationships with--this administration--with visits from 
the Secretary of Defense Tillerson, the President, the Vice 
President. But, the short answer is yes. It is critical that we 
have our allies and partners, whether it is Japan, South Korea, 
strengthening the relationships with China, to----
    Senator Merkley. Thank you. I will just take yes. You had 
me at yes.
    Colonel Thompson. Okay, sir. Thank----
    Senator Merkley. Thank you.
    So, our administration is considering a 123 agreement with 
Saudi Arabia that would not have the gold standard on 
nonproliferation, which is prohibiting uranium enrichment and 
plutonium reprocessing. Of course, the goal is not to create 
the foundation for the potential for a nuclear weapons program. 
We have, in the course--the largest Shi'ite power, Iran, and 
the largest Sunni power, of Saudi Arabia. We have been doing 
everything we can to have Iran not pursue a nuclear weapons 
program. Should we allow Saudi Arabia to proceed with American 
technology in nuclear power plants that do not have the gold 
standard, given the risk of creating that competition between 
the two and undermining our own efforts to prevent Iran from 
getting a nuclear bomb?
    Colonel Thompson. Thank you for the question, Senator.
    And I know the talks are ongoing. I have not been privy to 
those talks. And I know the talks predated this particular 
administration. But, it is my goal that--to have the 
nonproliferation standards possible, briefly addressed earlier, 
with the earlier UAE, with the gold standard. And, if 
confirmed, I look forward to working with this committee and 
with the interagency to ensure that we get the strongest 
standards possible for that agreement.
    Senator Merkley. Does it give you any concern, though, 
that, if we have standards for Saudi Arabia, that Iran, as the 
competing Shi'ite power, will say, ``Well, you are not treating 
the two of us equally,'' and make it harder for us to pursue a 
no-nuclear-weapon policy? We did ask Iran and--as part of the 
agreement, to dismantle their Iraq reactor, pour concrete in 
the core, and so on, so forth.
    Colonel Thompson. Senator, I can commit to you that I will 
work to achieve the highest standard achievable. Again, I 
have--do not know what agreements have been--occurred in the 
past, but I can tell you and commit to you that I will work for 
our country to get the strongest standards achievable.
    Senator Merkley. Back in 2003, we negotiated an agreement 
with Libya to surrender, discontinue all elements of its 
nuclear weapon development program. What confidence would North 
Korea's Kim regime have that a similar decision to denuclearize 
would not result in the same fate as befell Gaddafi?
    Colonel Thompson. Well, I have not, you know, met the 
leader, but I would not wager to get what is in his mind. What 
I can say is that the maximum pressure campaign from this 
administration has taken steps to put pressure on the regime. 
We have seen some movement. And, obviously, as the Assistant 
Secretary mentioned, with the relationship with China, been 
cutting down the financial footholds. I do not know the 
relationships--if we can--with the North Korean regime, I do 
not know if he parallels any other regime, sir, quite candidly.
    Senator Merkley. All the experts in the region, when we 
visited there, noted that North Korea paid a lot of attention 
to what happened with Gaddafi. So, I am just asking you if that 
is--with your background in national security, if that was a 
real concern in the message that was sent through that action, 
in terms of our efforts to denuclearize the Korean Peninsula.
    Colonel Thompson. Yes, sir, it is absolutely a data point.
    Senator Merkley. Yeah.
    In our--did I run out of time already?
    The Chairman. You did.
    Senator Merkley. How did that----
    The Chairman. It is just been----
    Senator Merkley. How did that happen?
    Thank you.
    The Chairman. Thank you so much.
    Senator Young.
    Senator Young. Well, thank you, Chairman.
    Congratulations to each of you for your nominations. Thank 
you for visiting with me in my office. And I appreciate your 
previous history of service.
    President Trump, Mr. Fannon, said, in November of last 
year, that economic security is national security. Do you agree 
with this?
    Mr. Fannon. Yes, Senator.
    Senator Young. Okay. Do you believe energy security is an 
integral component of economic security?
    Mr. Fannon. Yes, Senator.
    Senator Young. And so, my inference would be that you also 
agree that energy security is a necessary and important part of 
our national security.
    Mr. Fannon. I do.
    Senator Young. Okay. When it comes to the economic and 
energy security of this country, do you agree that the actions 
and priorities of the Bureau of Energy and Natural Resources 
can be optimized if they are carried out in support of a 
written strategic plan for the Bureau?
    Mr. Fannon. Senator, thank you for the question.
    Senator Young. This question should not come as a surprise, 
because we discussed it in my office.
    Mr. Fannon. Absolutely. I think that--I would just point 
out that the foundation would be the National Security 
Strategy, which speaks to this very issue. I think, from our 
conversation, you raised the point, ``How can we delineate that 
with a little bit more granularity and have more measurable 
outcomes? And I think that there is--if confirmed, I would like 
to work with you on how just to do that.
    Senator Young. So, based on your preparation for this 
hearing, does--do you know whether ENR periodically produces 
some sort of written strategy?
    Mr. Fannon. I do not, Senator.
    Senator Young. Well, you were not aware of one when we 
previously discussed it. So, if confirmed, will you provide my 
office a copy of a written strategy?
    Mr. Fannon. Yes, Senator. It would be my intention to 
help--if confirmed, to work with the Bureau and other partners 
to come up with something that would achieve that goal.
    Senator Young. Okay. A written strategy. It is important to 
me.
    Mr. Fannon. I understand, Senator, yes.
    Senator Young. Okay. Thank you.
    Ms. Thompson, if confirmed, I understand you will lead the 
interagency policy related to arms transfers and security 
assistance. Do you agree that the U.S. Government should fully 
comply with all laws related to security assistance?
    Colonel Thompson. I do, Senator.
    Senator Young. And, during our meeting yesterday, we 
discussed the potential need to update and refine some of those 
laws. So, if confirmed, do you and your team commit to working 
closely with me and members of my team to determine whether we 
can improve U.S. laws related to security assistance?
    Colonel Thompson. Absolutely, Senator.
    Senator Young. All right, thank you.
    In the Senate Intel committee's hearing this week on 
worldwide threats, our Director of National Intelligence, Dan 
Coates, a Hoosier, reiterated that Iran has the largest 
ballistic missile program in the Middle East. He warned that 
Iran may develop an ICBM that could strike the United States. 
He noted Iran's space program could shorten Tehran's path to an 
ICBM. The intel community has consistently warned that Tehran 
would choose ballistic missiles as its preferred method of 
delivering nuclear weapons if it acquired them.
    Ms. Thompson, do you agree with these DNI Coates and intel 
community assessments?
    Colonel Thompson. Yes, sir, I do.
    Senator Young. I would also note a January 25 report by the 
Foundation for Defense of Democracies that documented as many 
as 23 ballistic missile launches by Iran just since the 
conclusion of the July 2015 Iran deal. Based on these concerns, 
on February 6, Senator Rubio joined me in leading a letter to 
our President regarding Iran's ballistic missile program. Our 
letter was signed by 14 United States Senators.
    Mr. Chairman, with unanimous consent, I would like to enter 
that letter into the record.
    The Chairman. Without objection.


    [The information referred to above is located at the end of 
this transcript.]


    Senator Young. Ms. Thompson, have you had a chance to 
review our letter?
    Colonel Thompson. I did, Senator, thank you.
    Senator Young. Well, then you will know our letter calls 
for tough additional sanctions against Iran, and expresses a 
desire to work with the administration. So, if confirmed, will 
you work with my office and this committee to determine what 
additional sanctions we might impose on Iran to counter its 
ballistic missile program?
    Colonel Thompson. If confirmed, I commit that I will work 
with you and this committee, absolutely, Senator.
    Senator Young. Absolutely. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Absolutely. Thank you, sir.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And congratulations, to each of you, on your nominations. I 
look forward to working with you, if confirmed.
    Can I ask, Ms. Thornton--I had a briefing, with some other 
Senators yesterday, with someone from the White House who made 
it very clear that there is no ''bloody-nose strategy`` for a 
strike against North Korea. And I--and we asked him if we could 
go out and quote him on that, and said yes. Is it your 
understanding, as well, that there is no ''bloody-nose 
strategy`` against North Korea?
    Ms. Thornton. That is my understanding, Senator, yes.
    Senator Shaheen. Thank you.
    How concerned are you that we do not yet have an Ambassador 
in South Korea, given the challenges we are facing on the 
Korean Peninsula? And what--can you describe what that means, 
in terms of our diplomacy in that area?
    Ms. Thornton. Thank you.
    Well, of course, as a career diplomat, I am very well aware 
of the importance of having a representative of the President 
that is confirmed on the ground to represent us in all 
countries, but especially in South Korea. And I know that our 
team is working very hard with the White House on a nomination 
for our Ambassador in South Korea.
    I do want to point out, though, that we do have a 
tremendous team at the Embassy in South Korea, and a very, very 
capable charge d'affaires out there, Mark Knapper, who has been 
doing an incredible job over the last almost year.
    Senator Shaheen. I certainly would second that. I think we 
have very impressive diplomats in our embassies. But, it does 
send a message to the country where--to South Korea and to 
other countries in the region about how we view the importance, 
I think. I heard from a German official, recently, who was 
expressing concern that we do not yet have an Ambassador to 
Germany, either, and that that sends a message. So, I do hope 
that you will do everything you can to expedite and move this 
process along, because we should not be a full year into a new 
administration and not have an Ambassador in a country that is 
so critical to foreign policy in that region.
    Can I ask, Mr. Fannon--you spoke to, I believe it was 
Senator Cardin's questions about Nord Stream 2 and sanctions. 
As I am sure you are aware, the sanctions act, CAATSA, that we 
passed last year would authorize sanctions against energy 
projects that Russia is engaged in that involve a certain level 
of their participation. So far, no sanctions have been imposed 
to date. What we have heard from the State Department 
spokesperson is that we do not need to impose sanctions under 
CAATSA--I am paraphrasing, here--that just the threat is a 
deterrence. Do you believe that to be the case with energy 
projects? And are there any examples that you can provide?
    Mr. Fannon. Apologies, Senator, but in--with respect to the 
question, is it directed to the CAATSA, in particular?
    Senator Shaheen. It is. Are there any sanctions that you 
think should be applied under CAATSA relative to Russia's 
energy projects?
    Mr. Fannon. Thank you for the clarification, Senator.
    I--I have not been briefed on these issues substantively, 
being outside of the Department and given the security issues 
at play. I am aware of----
    Senator Shaheen. But, you were able to comment on Nord 
Stream 2. Is that--would you put that in a different category 
than other projects?
    Mr. Fannon. Well, with respect to that, Nord Stream 2, I 
was referring to the Secretary's public comments on that 
matter. With respect to CAATSA, I am aware of the legislation 
that passed with overwhelming support. I am aware that the 
Department intends to apply pressure to change Russia's 
behavior. And, if confirmed, I will pledge to work with the 
committee and throughout the interagency to do just that.
    Senator Shaheen. Thank you.
    Colonel Thompson, in response to Russia's violations of the 
INF Treaty, the administration has decided to initiate U.S. 
research and development on ground-based cruise missiles that 
would not be treaty-compliant. As I understand, this step would 
not violate the INF Treaty, but would set us on a different 
course. Do you believe that beginning R&D on this type of 
missile will have any impact on Russia? Will they be willing to 
come back into compliance if we begin to do this kind of 
research? And are there any risks that you see in this 
approach?
    Colonel Thompson. Thank you for the question, Senator.
    I think it is important that the U.S. maintain our 
compliance with the treaty. As--have not been fully briefed, 
but look forward to receiving, if confirmed, those briefings. 
My understanding is that the R---as you mentioned, that the R&D 
does not violate that treaty. I think it is important, as an 
old soldier and as, hopefully, a, if confirmed, future Under 
Secretary, that we continue to conduct those R&D efforts. Those 
are--some of those are very long--long-term projects, and we 
would not want to get flatfooted.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, I want to thank Senator Shaheen for bringing 
up the, quote, ''bloody-nose strategy.`` I was in the same 
meeting she was in yesterday, and all of us have been shaking 
our heads. The national media did what it always does, and they 
have reported that the President has been advised on this, and 
this is one of the options that we have. And we were told 
clearly by administration people--it is about as high up as it 
gets--that there is no such thing as a ''bloody-nose 
strategy,`` that they have never talked about it, they have 
never considered it, they have never used that term, and it is 
not something that people ought to be talking about. So, thank 
you, Senator Shaheen, for bringing that up. And this is a good 
hearing, actually, to do that in. And, obviously, I mean, that 
thing has repercussions that one cannot even imagine. So, it is 
a good thing that that has never been talked about.
    However, talking about the North Korea strategy, Ms. 
Thornton, I--the Chairman asked you a question; I did not quite 
get an answer to that. And he asked about, Who is the 
responsible person? Obviously, it is the President of the 
United States. But, you mentioned--I think his specific 
question was, Who is steering the boat on this right now? Who 
is the person steering the boat on this right now? And you 
mentioned the March 17th committee that came up with a 
strategy. And I guess I--can you give us a little more direct--
do we need to talk to Secretary Tillerson if--if we are looking 
for the nuance sentence that has to be put on the table, is it 
Secretary Tillerson that we talk to?
    I thought the Vice President did a fabulous job, when he 
went to South Korea, of laying out exactly what is on America's 
mind when it comes to North Korea. And words matter. And things 
have got to be nuanced right, particularly in this situation.
    Who is the person that the Chairman was seeking to 
identify? Is that you? Is it the Secretary of State?
    Ms. Thornton. Well----
    Senator Risch. Obviously, the President, but----
    Ms. Thornton. Yeah. I mean, obviously, this is a whole-of-
government effort. It comes from the President, but certainly 
the Secretary of State has been in the lead on all of the 
diplomatic efforts to build this global coalition of maximum 
pressure. We held a meeting of a number of foreign ministers in 
Vancouver recently, where we expanded that coalition very 
meaningfully, I think. And so, we are following the Secretary's 
direction; and our Bureau, I think, for the State Department, 
is in the lead on this effort, but we make use of colleagues 
across the Department and across the interagency of the U.S. 
Government to help us with that.
    Senator Risch. Okay, thank you.
    Ms. Thompson, the 123 agreements, there are a lot of us 
here that are big fans of the 123 agreements, for lots and lots 
of different reasons. I hope you will commit to continue to 
pursue them, whenever possible. If a country does not come to 
us, they are going to go somewhere else to--probably an 
adversary--well, not necessarily an adversary, but--well, you 
know, it could be an adversary. And that is not in our best 
interest. You onboard with the 123s? Are you--you feel good 
about those?
    Colonel Thompson. I echo those sentiments, Senator.
    Senator Risch. Okay, thank you very much.
    Japan's agreement is up in 2018. Are you--has that--where 
is that right now? Are you engaged in that yet, or not?
    Colonel Thompson. No, Senator, I have not been engaged with 
that. If confirmed, that would be part of my portfolio.
    Senator Risch. Have you been briefed on it as----
    Colonel Thompson. No, sir.
    Senator Risch. Okay. Thank you very much.
    The treaties we have, the arms control treaties that we 
have, all of us have been sometimes preoccupied with cheating 
on those treaties. I led the fight against other New START 
Agreement, which I lost on the floor. And I would like to have 
that vote again. I think maybe the vote would be a little 
different today than it was then. And cheating was a huge issue 
at that point. The other treaties that we have--obviously, in 
this setting--nonclassified setting, we cannot talk about 
exactly what that--what constitutes--or what has been going on, 
as far as the cheating is concerned.
    We have had Secretary of State sitting in the chair you are 
sitting in, and went over this with him. And he wrung his hands 
and talked about how bad it was and how terrible it was, and we 
cannot put up with it. But, it kept happening. And we really 
did not do anything much about that. What are your thoughts on 
that? Where do you come from when we catch somebody cheating? 
And obviously, we cannot deal with everyone, because it would 
release methods and sources that we cannot disclose. What are 
your thoughts on what you are going to do when you find out 
that these people are cheating?
    Colonel Thompson. Well, thank you for that question, 
Senator.
    I think success will lie in a number of areas. One, I have 
confidence on our intelligence community as we continue to 
build that out----
    Senator Risch. As do I.
    Colonel Thompson:--the eyes and ears on our adversaries and 
when they are not abiding by the rules. I also have great 
confidence in our allies and partners. I think it is important 
that we have--we strengthen those existing relationships and 
reach out to those that are looking towards the West, and build 
upon that. I think that is going to be our success as a--to use 
a military term, a ''combat multiplier`` if we get additional 
countries assisting with that and putting pressure on their end 
so it is not a unilateral United States action.
    Senator Risch. My time is up. Thank you, Mr. Chair.
    The Chairman. Thank you.
    I had about a minute and a half of time, before I turn to 
Senator Menendez, from my first questioning period.
    To New START, just--Ms. Thompson, I mean, it seems to me 
that the START Treaty has actually achieved the desired goals 
that were laid out. Would you agree or disagree with that?
    Colonel Thompson. I would agree with that, Senator.
    The Chairman. So, we have basically caused both of our 
countries to reduce the amount of warheads and delivery 
systems, which, in our case, has allowed us to save monies to 
invest in modernization to make sure that the nuclear warheads 
and delivery systems that we have actually work, versus having 
a huge inventory of them, not knowing whether they can be 
delivered or not, at huge expense. It has allowed us to focus 
ourselves in a much better way. Is that correct?
    Colonel Thompson. That is correct. Thank you.
    The Chairman. And, so far, has the other party adhered, 
generally, to this agreement? Not INF, but to the START Treaty 
itself?
    Colonel Thompson. As I understand--I have not received 
classified updates, and I know, just from open source, that 
reported that they have.
    The Chairman. Senator Menendez.
    Senator Menendez. Thanks, Mr. Chairman.
    Ms. Thornton, our National Security Strategy defines China 
as a rival and a revisionist power. It lays out that China and 
Russia challenge American power, influence, and interests, 
attempting to erode American security and prosperity. And I am 
reading directly from the strategy. Given this assessment, how 
should U.S. diplomacy towards China be revised compared to 
prior administrations who looked to build on the cooperative 
elements of our relationship with China as a partner, and to 
encourage China to be a responsible stakeholder, and also as a 
way of addressing the competitive aspects of our relationship?
    Ms. Thornton. Thank you very much, Senator, for that 
question, which is a big question.
    I think, you know, what we have seen in recent years is a--
is that we have moved to an inflection point in our 
relationship with China. And the National Security Strategy 
reflects, I think, that realization, where we need to preserve 
space to cooperate with China. It is the biggest country in the 
world, second-largest economy in the world, and we have a whole 
range of issues that we need to deal with them on--permanent 
member of the U.N. Security Council, et cetera. But, the--this 
National Security Strategy reflects the realization that we are 
also going to have to compete in a lot of areas with a China 
that is growing in power, both economic, military, and 
diplomatic. And----
    Senator Menendez. So, what do we--I appreciate that--what 
do we specifically--what would be--if you are confirmed, what 
would be your advocacy of how we change our policy?
    Ms. Thornton. So, I think--well, we need to, first of all, 
make sure that we are working with other partners in the region 
who are also coming to the same realization, which they are, 
continue to push back on bad behavior, call out, use the tools 
that are at our disposal, whether they be trade remedies, 
sanctions, other tools, and also just diplomatic engagement, I 
think is quite effective with China. China wants to have a good 
relationship with the United States, which is something that, 
you know, gives us entree to deal with them on a diplomatic 
level on many of these issues, and we--they also care a lot 
about their standing in the world. And so, working together 
with other countries and----
    Senator Menendez. Well----
    Ms. Thornton.--partners to push back on bad behavior----
    Senator Menendez. Let me ask you some----
    Ms. Thornton.--call out----
    Senator Menendez. Let me ask you some specifics. So, do you 
believe that China is doing all that it should be doing to help 
us meet the challenge of North Korea?
    Ms. Thornton. Well, I think China is doing a lot to help us 
meet the challenge of North Korea.
    Senator Menendez. Is it doing----
    Ms. Thornton. I do not think they are doing----
    Senator Menendez.--all that it should be doing?
    Ms. Thornton.--everything that they could be doing. And we 
are continuing to work with them to push----
    Senator Menendez. So, if we want to get China to do more, 
and we wanted to change its calibration as to how it is 
thinking about North Korea, should we consider naming China a 
currency manipulator? Should we consider sanctioning Chinese 
banks that are facilitating North Korean transactions? Should 
we be reviewing our One China policy? How do we get China's 
focus and calibration to change?
    Ms. Thornton. Well, I think what we have to do is 
prioritize and go after the issues that we are focused on with 
regard to China, which, in the administration's current 
approach, is North Korea, trade and economic relations, and 
also some law enforcement cooperation on things like opioids, 
et cetera. And I think, you know, we can work with China on 
North Korean issues. We certainly need to continue to press for 
sanctions on entities that are end-running the U.N. sanctions 
regime--and we will do that, as I mentioned to Senator Gardner 
earlier--but also continue to work with them, because they are 
the most important player in implementing those sanctions and 
making the difference in ratcheting up the pressure in North 
Korea.
    On other issues, trade and economic issues, we need to use 
the trade tools that we have at our disposal. We are preparing 
a host of measures, and we are continuing to engage with the 
Chinese to let them know the areas where we see backsliding, 
where we feel agreements have not been observed, and go after 
those, either--hopefully, through diplomatic engagement; if 
not, through----
    Senator Menendez. All right, thank you.
    Ms. Thompson, let me ask you. The START Treaty, in 2021, 
can be extended for 5 years. If circumstances surrounding the 
treaty remain the same, which right now we have compliance, and 
even in the midst of malign activities, like Ukraine's 
cyberattacks during our elections, noncompliance with the INF, 
the one positive area is New START--would you be a proponent of 
extending the treaty for 5 years?
    Colonel Thompson. Thank you for the question, Senator.
    I honestly think it is too soon to tell. Much changes in 
our world over the course of days and weeks, much less years. I 
can commit to you that I will always stand up for----
    Senator Menendez. What would have to change? If 
everything--if Russia is obeying, and we are obeying, and we 
are living under the treaty, what would change, in your mind, 
that would want us to break away from that?
    Colonel Thompson. There may be other situations in the 
globe that--associated with Russia--I would say, you know, 
Syria is an example, maybe others--where it would be a tool in 
our diplomatic toolkit that we might want to use to get an 
agreement in another area associated with Russia.
    Senator Menendez. Well, I have several other questions, 
but, in deference to our colleagues, I will wait until the----
    The Chairman. Thank you, sir.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you all for being here.
    Ms. Thornton, there was an article, I have here, on October 
22nd in the Wall Street Journal of last year, and it says that 
FBI agents, in May of last year, were prepared to arrest or 
detain four officials from China's Ministry of State Security, 
which is the equivalent of our CIA, for conducting illegal 
official business while traveling through the U.S. on transit 
visas. These officials had traveled to New York City to 
pressure Guo Wengui, a health--a wealthy Chinese businessman 
who applied for asylum in the United States, to return to China 
and stop using social media to accuse Chinese officials and 
tycoons of corruption. The article goes on to say that, while 
FBI agents were at the airport and prepared to arrest or detain 
these officials before they departed to China, they could not 
secure final signoff from Washington. According to this 
article, some senior administrative officials described you and 
some of your colleagues as not supporting this FBI operation 
and, quote, ''improperly hindering law enforcement efforts to 
address China's repeated violations of U.S. sovereignty and 
law,`` end quote. Is it true that you opposed that arrest?
    Ms. Thornton. I am not sure that I was involved in that 
decisionmaking process, but I do know that it was an 
interagency decision and that there were interagency meetings 
on this issue that came to the conclusion.
    Senator Rubio. Do you recall being involved in the 
interagency decisions?
    Ms. Thornton. I do not.
    Senator Rubio. So, you--your testimony today is that this 
article, and the claim about you, in particular, being involved 
in this decisionmaking, is false, that you did not, as the 
article says, hinder law enforcement efforts to arrest them. 
The FBI had a recommendation to arrest them, and your testimony 
is that you did not hinder that.
    Ms. Thornton. I was not involved in those meetings. I know 
that there were interagency meetings, and that it was the 
decision of the interagency to not arrest them.
    Senator Rubio. So, you were not involved in any of the--
just to--I want to be clear--you were not involved in any of 
the discussions, interagency meetings. You had nothing to do 
with the decision by this--by anyone in Washington to ask the 
FBI not to arrest them. You had nothing to do with that 
decision.
    Ms. Thornton. I mean, I was aware of the conversations that 
were going on at the time and after the fact.
    Senator Rubio. But, you did not weigh in.
    Ms. Thornton. I did not weigh in.
    Senator Rubio. Okay.
    I want to ask you another question. There is this--and 
just, again, because you are acting in this capacity already, 
and you have been involved in these efforts for a long time--
this is the Web site of the State Department. I had a chart, 
but I did not put it up. With your permission, I just want to 
hold up this paper. It used to have the flag of Taiwan in the 
Web site, and no longer has the Taiwanese flag. Do you know how 
that happened? Are you aware of how that decision was made to 
take it down?
    Ms. Thornton. Yes, I am aware. The Consular Affairs Bureau 
rolled out a new Web site for travel advisories that was done 
through a contract and was not seen by our office. And 
following the publication--we do not recognize, of course, 
Taiwan as an independent country, and we do not recognize the 
flag of the ROC as a country where we have official relations. 
And our policy is to not display the flag of the ROC on U.S. 
official government Web sites.
    Senator Rubio. That is a new policy, because it was on 
there before.
    Ms. Thornton. No, this is a new--I believe it is a new Web 
site. But, we--our--it is not a new----
    Senator Rubio. I am sorry. It is a new contractor, not----
    Ms. Thornton.--it is not a new policy.
    Senator Rubio.--a new Web site. This is----
    Ms. Thornton. Sorry.
    Senator Rubio. The old Web site has the flag. The new one 
does not. So, it is not an old Web site, it is an--might be a 
new contractor that designed the Web site, is what you are 
saying.
    Ms. Thornton. I am not sure what specific site that is, 
but----
    Senator Rubio. www.state.gov. That cannot----
    Ms. Thornton. But--I mean, I am just saying that it is not 
a new policy not to display the flag.
    Senator Rubio. Well, the flag is here, so was that just a 
blip or something? I guess it was--somebody inadvertently put 
it in, and you guys took it out. The bottom line is, this is 
the way it is going to stay; we are not going to--we used to 
have the flag; it is not going to be on there anymore. There 
was a change. There is no doubt there was a change. The Web 
sites--the graphics are identical. Someone took down the flag.
    Well, on a policy note with regards to that, let me ask you 
this. Would--do you--would you commit to encouraging high-level 
visits between senior U.S. Government officials to meet with 
Taiwanese counterparts in Taipei?
    Ms. Thornton. Well, Senator, we have a very robust 
unofficial relationship with Taiwan that is grounded in our 
longtime policy based on those three joint communiques and, of 
course, our commitments under the Taiwan Relations Act, which 
are very important. And we have frequent exchange with people 
on Taiwan. And I think that--I certainly support continuing 
that robust unofficial relationship.
    Senator Rubio. But, what about having high-level visits 
between U.S. Government officials to meet with their 
counterparts in Taipei?
    Ms. Thornton. We have ongoing, as I say, visits by all 
realm of people from the U.S. visiting Taiwan, and we certainly 
continue to support that interaction.
    Senator Rubio. Okay.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, to the witnesses, for your service, and 
congratulations on your nominations.
    A question, first, for Ms. Thornton and Ms. Thompson. Two 
days ago, the DNI, Dan Coates, appeared before the Senate 
Intelligence committee, and he testified, quote, ''North Korea 
will be the most volatile and confrontational WMD threat in the 
coming year. In addition to its ballistic missile tests and 
growing number of nuclear warheads for these missiles, North 
Korea will continue its longstanding chemical and biological 
warfare programs also.`` Do you both agree with that assessment 
of DNI Coates?
    Colonel Thompson. I do agree with the Director, sir.
    Ms. Thornton. Yes, sir.
    Senator Kaine. Do you also agree with the stated position 
of Secretary of State, Secretary of Defense, and others, that, 
while the U.S. needs to maintain all its options to do with 
this threat, we are a diplomacy-first nation and are going to 
look for a diplomatic resolution that would stop the North 
Korean ambitions to get nuclear weapons or have them be able to 
be deployed against the United States or allies?
    Colonel Thompson. I do agree with the Secretary, yes, sir.
    Senator Kaine. So, whatever the percentage chance that we 
would assess to finding a diplomatic resolution with North 
Korea, that is something that we need to try.
    If I can move now just directly to Ms. Thompson. In the 
same hearing--because this is now not in Ms. Thornton's area of 
the world--in the same hearing, the DNI went on to say, 
''Iran's implementation of the Joint Comprehensive Plan of 
Action, the JCPOA, has extended the time it would take to 
develop a nuclear weapon from several months to about a year, 
provided Iran continues to adhere to the deals of major 
provisions.`` Do you agree with that assessment?
    Colonel Thompson. I do, sir.
    Senator Kaine. Secretaries Tillerson and Mattis have stated 
before this committee and the Armed Services committee that 
Iran is complying with the JCPOA and that the deal is in 
America's national security interest. Do you share those 
opinions?
    Colonel Thompson. Senator, I have not received the 
classified briefings during my time at State. I did, as 
National Security Advisor. During that time, the intelligence 
community briefed that they were not in violation.
    Senator Kaine. Will you take it from me that both 
Secretaries Tillerson and Mattis have publicly testified before 
these committees that they think Iran is complying with the 
JCPOA, and that the deal is in America's national security 
interest?
    Colonel Thompson. Sir, if they are complying, they are 
adhering to the JCPOA, and I have trust and confidence in both 
those Secretaries.
    Senator Kaine. Okay. Thank you.
    Given that, given that the North Korean threat is the most 
significant threat--and according to DNI Coates--and you guys 
agree with that--given that you agree that we need to focus 
whatever energy we have on finding a diplomatic resolution with 
North Korea, if that is possible, given that the DNI has stated 
that the JCPOA has stretched out the time for Iranian efforts 
to get a nuclear weapon, and that Secretaries Tillerson and 
Mattis say that they are complying and that the deal is in our 
national interest, what effect would stepping back from the 
Iran deal, or moving away from it--what message would that send 
to North Korea about the wisdom of doing a diplomatic deal with 
the United States?
    Colonel Thompson. Thank you for the question, Senator.
    The importance of the Iranian regime to--very familiar with 
this committee--extending their footprint across the Middle 
East and the globe, we have seen, separate from the JCPOA----
    Senator Kaine. Well, and I am going to ask about that 
separately. But, I am now talking about a nuclear deal. Why 
would any nation enter into a nuclear deal with the United 
States if the United States backed away from other nuclear 
deals that U.S. officials said were in our national interest, 
U.S. officials said were being complied with?
    Colonel Thompson. Sir, great question. I would wager that 
North Korea will look for Iran to see how they react. But, in 
the end, I have--again, with the North Korean regime, that he 
will make his own decisions.
    Senator Kaine. He will make his own decisions. Do you think 
the U.S. should demonstrate good faith and live up to 
agreements that we enter into?
    Colonel Thompson. I do, sir.
    Senator Kaine. Yeah. Well, you see where I am going with 
this. I am extremely worried about the administration--about 
the President, frankly--stepping back from an Iran deal, when 
his own key security officials are saying that Iran is 
complying with it.
    On the non-nuclear issues that you were starting to raise, 
I think the committee is in general agreement on those, and we 
have acted strongly--Iran sanctions legislation we have put on 
the President's desk, sanctioning human rights behavior, 
aggression in the region, violations of U.N. missile protocols. 
I think we are very focused on Iranian misbehavior in those 
areas. But, when we have the IAEA, our European partners, and 
chief security professionals saying Iran is complying with the 
JCPOA, and the administration suggests we may step back from it 
at the same time as we want North Korea to potentially 
entertain doing a diplomatic deal with the United States, I 
think we send a message--we risk sending the message that, if 
you enter into a nuclear deal with the United States, the 
United States will not comply with it. And I think that would 
take whatever that percentage is of North Korea doing a deal--
say it is 20 percent--and drive it down to virtually zero.
    I will just conclude and say, you know, I am a member of 
the Armed Services and Foreign Relations committee, and I feel 
like the joint responsibility of these committees means we need 
to minimize the risk of necessary war, and we need to maximize 
the chance that we will overwhelmingly win any necessary war. I 
do not think we should raise the risk of unnecessary war by 
stepping back from international agreements that are being 
complied with.
    And I will hand that back to you, Mr. Chair.
    The Chairman. I think I still have a few seconds, before 
turning to Markey, left on my time.
    I--we are working with the administration, as you know, to 
try to make the agreement with Iran something that is better. I 
think you know that. A big part of that depends on our European 
allies and how they view the efforts that we may have inside, 
domestically. And then there is an effort underway, I think you 
know, to have some type of follow-on framework with our 
European allies. I know that you were instrumental, as was 
Senator Menendez and others, to give us an opportunity to weigh 
in on this. I would say that, in agreements like this, when we 
talk about the good faith of the United States, this was, in 
essence, entered into by one person. It was not entered into by 
Congress. I know there were a lot of people advising. And I 
think what that speaks to is that, when we have agreements like 
this that we want our Nation to honor, we should do it in a 
fashion where Congress also weighs in. And that is what led to 
the legislation that we all worked on.
    But, I, too, hope that we are able to resolve and 
strengthen this in a way that is good for the United States, 
good for the world. And I guess we have until May 12th to hope 
that, again, our European allies are--will work with us in that 
regard.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Thornton, I would like to turn to Asia. According to 
the recent National Security Strategy, the Trump administration 
pledged to redouble its commitments to established alliances 
and partnerships while expanding and deepening relationships 
with new partners in a region it describes as the most populous 
and economically dynamic part of the world.
    We have a serious threat from North Korea to the United 
States. China presents a significant strategic challenge to 
U.S. economic and security interests. But, judging by the State 
Department's fiscal year 2019 budget request, it is hard to 
believe that the administration agrees with that assessment 
that it made. The President's budget request released this week 
recommends cutting the State Department and USAID budgets by 
approximately 30 percent over the actual 2017 budget.
    Within the State Department budget, how would funding for 
Asia-related issues change as a result of those cuts from 2017 
to 2019 budget year?
    Ms. Thornton. Well, thank you, Senator.
    I think, you know, we, in the East Asia-Pacific Bureau of 
the State Department, are fairly used to dealing with lean 
resource issues. We are a very small bureau. We have a very 
small proportion, overall, of assistance funding. I think, if I 
am not mistaken, the budget numbers that were released this 
week are actually an increase for our part of the world over 
what was requested in last year's budget. And so, I am 
certainly hoping that we would see, along with the emphasis in 
the National Security Strategy, you know, the share the pie 
going to EAP. I think it is getting larger.
    Senator Markey. Well, that is not my understanding, but I 
will follow up with you on that issue, because, obviously, 
especially when we are talking about North Korea, it is very 
difficult to see a successfully implemented North Korea policy 
for both diplomacy and sanctions enforcement if there is no 
U.S. Ambassador to South Korea, if the Coordinator for 
Sanctions Policy position is eliminated. It is an almost 
shocking set of decisions that have been made, in terms of 
ensuring that these positions are filled and that they are 
fully funded in order to make sure that we avoid a catastrophic 
situation in Korea. And many of the other offices seem to be 
understaffed, as well.
    I have sent a letter to Secretary Tillerson expressing my 
concerns about the impact on Asia. And so, I would appreciate 
answers to the questions I am--I will be submitting to you in 
the very near future.
    On the question of South Korea--I mean, of Saudi Arabia, 
Ms. Thompson, we were told that there is a process that is now 
in place to determine what the offer will be to Saudi Arabia, 
in terms of a 123 agreement. Once this process is concluded, 
and before any formal discussions with Saudi Arabia, the Atomic 
Energy Act requires the President to keep this committee fully 
and currently informed of any initiative or negotiations 
relating to a new or amended agreement for peaceful nuclear 
cooperation. And I do not think that means just filling us in 
after the fact, after the deal has been negotiated. Will you 
commit to providing us with the information with regard to what 
the offer to the Saudi Arabians are going--is going to be, 
after you complete your process?
    Colonel Thompson. Thank you, Senator. And thank you for 
making the time yesterday for our discussion yesterday. Very 
fruitful.
    I commit to you that I will work with you and this 
committee to keep you informed, if confirmed.
    Senator Markey. But, again, before the offer is made to the 
Saudi Arabians, will this committee know what that offer is 
going to be?
    Colonel Thompson. Sir, I can commit to you, if confirmed, I 
will work with the committee. I am not privy to where it is in 
the process, and I would work with the experts in the 
interagency and with the Secretary to make sure we keep the 
committee informed.
    Senator Markey. Well, again, under the law, you have a 
responsibility to keep this committee----
    Colonel Thompson. Absolutely.
    Senator Markey.--quote, ''fully and currently informed of 
any initiative or negotiations.``
    And finally, on the issue of Japan, Japan continues to give 
us--raise concerns about reprocessing of spent fuel into 
separated plutonium, when, one, it already has 48 tons of 
separated plutonium; two, Japan does not have an operating 
facility to turn its plutonium into fuel for nuclear reactors; 
and, three, the vast majority of Japan's nuclear reactors are 
not currently operating anyway. Do you think the United States 
should consider renegotiating the 123 agreement with Japan over 
its continued plutonium production to no purpose which seems to 
be related to the generation of electricity and could cause a 
real proliferation risk in that entire region?
    Colonel Thompson. Thank you for the question, Senator.
    I--and I assure you that I will dig into this issue, if 
confirmed. I have great confidence in our diplomatic 
relationship with the Japanese, both from the President on down 
and the recency of--with the Secretary, a very strong 
relationship, both here and over in Japan, with our strong 
Ambassador, as well. And so, we will definitely work with the 
committee, and I will dig into that when--if confirmed.
    Senator Markey. Yeah. I think what is happening in Japan is 
potentially contributing to an increased risk for nuclear 
proliferation in that region. And the same thing would be true 
for a 123 agreement with Saudi Arabia that did not absolutely 
maintain the gold standard. And I think that we are going to 
need a very close cooperation between the committee and your 
Department in order to make sure that that is the case.
    Thank you so much.
    Colonel Thompson. Thank you, Senator.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Did you have some followup questions? Go ahead. Yes, sir.
    Senator Menendez. Thank you, Mr. Chairman.
    So, very quickly, Ms. Thornton, would you commit to us 
that, if confirmed, any recommendations you give regarding the 
trafficking-in-persons report will be based solely on a 
country's efforts to combat trafficking and not other unrelated 
factors?
    Ms. Thornton. Yes. If confirmed, I can certainly say that.
    Senator Menendez. Thank you very much.
    Ms. Thompson, should--there is some suggestion that we are 
going to have the possibility of a new 123 agreement with Saudi 
Arabia. Do you believe the gold standard should be implemented 
in any such agreement?
    Colonel Thompson. Thank you, Senator. I think we should 
always set our standards to meet the highest standards for the 
United States.
    Senator Menendez. So, in this case, the gold standard would 
be the higher standard. Is that a fair statement?
    Colonel Thompson. That is the standard of the community. 
Again, not privy to the conversations, but always want to work 
to the highest standards we can get.
    Senator Menendez. All right. What we do not need is a rush 
to nuclear power and a tinderbox of the world. And so, that is 
why the gold standard is so important.
    Mr. Fannon, I did not want you to feel left out of my 
affection, so let me ask you this. We talked yesterday about 
some of your past work and regarding your recusal from certain 
issues. And you noted, in our meeting yesterday, that you 
believe there would be a way for the ethics team to carve out 
some of your involvement. Have you been able to get any further 
clarity on that? Because I am trying to figure out what is it 
that you are carving out.
    Mr. Fannon. Yes. Thank you for the time yesterday, Senator. 
And thank you for your attention to the question.
    If confirmed, I can pledge to work diligently with the 
ethics attorneys and follow their instruction to the letter 
with respect to recusals.
    Senator Menendez. Okay. Well, we are--I appreciate that, 
and that is a good answer to start off with, but I am going to 
want to know exactly what Ethics is talking about in terms of 
carve-outs. Is it company-specific? Is it policy sectors? 
Because obviously there is a big difference. There is a big 
difference between carving yourself out from a specific 
company's involvement in which State, in your particular 
position of ENR, would involve, or whether there is a policy 
issue that would be involved. So, I hope we can get that answer 
so we can move your nomination along.
    Let me ask you this. As a lobbyist for Murphy Oil, you 
lobbied against my bills in the 111th and 112th Congress to 
hold oil companies accountable for disasters that they cause. 
So, as you are promoting energy across the globe, what degree 
of responsibility do you believe oil companies should bear for 
disaster mitigation when they cause a spill or disaster?
    Mr. Fannon. Yes. Thank you for the question, Senator.
    We had the opportunity to discuss that bill, that 
legislation, and I--during our discussion, I commented that I 
laud the spirit in which it was offered to make sure that--to 
hold leaders to account, the situation with that bill. And we 
discussed it, in particular. But, more broadly to your 
question, I believe, as I spoke to in my opening, that 
transparency is critical. And a part of that is to have clearly 
delineated accountability measures.
    Senator Menendez. So, is it fair to say that, if you mess 
up, you clean up?
    Mr. Fannon. Yes, Senator.
    Senator Menendez. All right.
    Now, there is a lot of emphasis about fossil fuels with the 
administration, but your Department's stated objective under 
the State Department also talks about renewable energy sources 
as part of that. Are you committed to the Department's 
statement of its own purposes as it relates to ENR's mission, 
globally?
    Mr. Fannon. Yes, Senator. Thank you for the question.
    The--my understanding of the Bureau, and as you read it to 
me during our meeting, was--is that they are agnostic as to 
fuel source, and they are there to support delivery of energy, 
and to support U.S. firms, et cetera. But, in terms of the type 
of source, it is agnostic.
    Senator Menendez. Well, my understanding from reading the 
statement is that it is not necessarily agnostic. It is not 
agnostic if you say, ''the pursuit of alternative energy and 
energy efficiency and greater transparency and accountability 
in the energy sector.`` The pursuit of something is not 
agnostic. It is actually a proactive word.
    Mr. Fannon. Yes, Senator. I was speaking in terms of--it is 
truly an all-of-the-above approach, is my understanding of the 
Bureau's work. And so, it--there would not be a weighted 
measure of one fuel source over another.
    Senator Menendez. Okay.
    I have a series of other questions. I will submit it for 
the record. I will look forward to your answers.
    Mr. Fannon. Thank you.
    Senator Menendez. Thank you all.
    The Chairman. We thank you all for your testimony and your 
willingness to serve in these capacities, as was mentioned on 
the front end.
    There will be other questions, as Senator Menendez just 
alluded to. And so, we are going to keep the record open until 
the close of business on Monday. I know, in this particular 
case, you will want to answer those very rapidly. We would hope 
that you would do so.
    Again, thank you for the great testimony today. I look 
forward to your service to our Nation. Thank you so much.
    The meeting is adjourned.
    [Whereupon, at 11:43 a.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to
               Andrea Thompson by Senator Robert Menendez

Israel
    Question 1. A central hallmark of the U.S.-Israel relationship has 
been the close working relationship between the countries. It has long 
been U.S. policy to maintain and enhance Israel's qualitative military 
edge (QME)--effectively, Israel's ability to defend itself, by itself, 
against any threat or potential combination of threats. Given the 
threats along Israel's borders and the instability in the region 
overall, this U.S. commitment is of upmost importance. If confirmed, 
will you make ensuring Israel's QME is maintained a constant priority?

    Answer. Yes. Israel's security is paramount to U.S. foreign policy 
in the Middle East. If confirmed, I would ensure the commitment of the 
United States, by statutory requirement and longstanding policy, to 
ensuring Israel maintains its qualitative military edge (QME) by 
reviewing arms sales to the Middle East in the context of Israel's QME. 
As you are aware, the law requires that for any arms sale to the Middle 
East requiring Congressional Notification under the Arms Export Control 
Act, the notification must also include a determination that the sale 
does not adversely affect Israel's QME.

    Question 2. Do you support the provision of security assistance to 
Israel in accordance with the 2016 U.S.-Israel memorandum of 
understanding?

    Answer. Yes. U.S. support of Israel's security is steadfast, and 
Israel continues to be the leading recipient of U.S. Foreign Military 
Financing (FMF). In Fiscal Year (FY) 2016 and FY 2017, the 
administration requested $3.1 billion in FMF funding for Israel. As you 
reference, the United States and Israel recently signed a new 
Memorandum of Understanding (MOU) that lays out grant assistance 
funding levels from FY 2019 to FY 2028. The new MOU commits the United 
States to requesting $3.3 billion each year to Israel in FMF funds, 
plus an additional $500 million each year in DoD missile defense funds, 
for a total of $38 billion over this 10-year period. If confirmed, I 
will support this commitment.
Lebanon
    Question 3. The United States continues to provide extensive 
armament to the Lebanese Armed Forces. At the same time there are 
growing questions about the independence of the LAF and its connections 
to Hezbollah. What are your views of the Lebanese Armed Forces and 
whether the U.S. should continue to support them?

    Answer. Secretary Tillerson just returned from Beirut, where he had 
productive discussions with Lebanese leaders. U.S. assistance for 
Lebanon's security services, especially the Lebanese Armed Forces 
(LAF), is the backbone of U.S. policy to reinforce Lebanon's 
sovereignty, assert the Lebanese Government's authority throughout all 
of its territory, and ensure Lebanon remains a bulwark against violent 
extremism in a volatile region. Since 2006, the United States has made 
a $1.7 billion investment in the LAF that has paid outsized dividends 
for U.S. interests in the Middle East. Just in the last year, the LAF 
soundly defeated ISIS and al-Qaida, resumed control of several 
positions along the Syria border, and increased joint border patrols 
with the U.N. Interim Force in southern Lebanon--enforcing the Lebanese 
Government's sovereignty in Hizballah's historic heartland.
    If confirmed, I will work to ensure that the Lebanese army is an 
increasingly effective fighting force and one of our strongest counter-
terrorism partners in the region. Strengthening Lebanese state 
institutions like the LAF undermines Hizballah and its attempts to 
exploit a weak Lebanese Central Government. Without a strong military, 
Lebanon's existence as an independent and democratic ally in the region 
would be jeopardized. This would enable Hizballah to expand its 
influence and increase the risk of instability inside Lebanon and 
beyond.

    Question 4. Do you believe the United States should enter into a 
123 agreement with Saudi Arabia? Should the United States require Saudi 
Arabia to agree to the same no-enrichment standard that was set with 
the UAE?

    Answer. As I said during my hearing, I am committed to ensuring the 
United States maintains the highest nonproliferation standards in 
negotiation of our 123 Agreements and will support the longstanding 
U.S. policy of limiting the spread of enrichment and reprocessing 
capabilities. Saudi Arabia has decided to move forward with a civil 
nuclear power program, and concluding a 123 agreement with Saudi Arabia 
is in the United States' commercial and nonproliferation interests. If 
the United States and Saudi Arabia bring a 123 agreement into force and 
a U.S. company is chosen as Saudi Arabia's supplier, then its nuclear 
power program will be subject to the strongest nonproliferation, 
safety, and security standards required by any nuclear supplier in the 
world. Conversely, in the absence of a 123 agreement, U.S. firms will 
lose the opportunity to compete for a place in a potentially sizeable 
market and will almost certainly be replaced by state-supported 
enterprises from other countries that demand far less stringent safety, 
security, and nonproliferation protection than we do.
NPR (Nuclear Posture Review)
    Question 5. The Nuclear Posture Review calls for the development of 
several new nuclear systems including a new nuclear warhead for our 
submarine forces and a sea-launched cruise missile. This is in addition 
to a new ground launched cruise missile that was announced during the 
view of the United States response to Russia's INF violation.

   How are our allies reacting to the United States call for the 
        development of new nuclear system meant to counter Russia's 
        GLCM?
   Would you consider the input of our allies valuable when dealing 
        with INF?

    Answer. While public responses of allied and partner government 
officials have varied since the February 2 release of the Nuclear 
Posture Review (NPR), I understand that allies expressed gratitude for 
the opportunity to hold confidential consultations with the United 
States and provide their views during the drafting process of the NPR 
and stated that they were unsurprised by the final report. My 
understanding is that nearly all allies expressed concern about the 
deteriorating security environment and appreciation for the continued 
U.S. commitment to extended deterrence and to our long-term 
nonproliferation and disarmament goals.
    Allied input on the INF Treaty is valuable. I understand that the 
administration continues to keep European and East Asian allies 
apprised of U.S. efforts through the integrated strategy to seek 
Russia's return to compliance with the Intermediate-Range Nuclear 
Forces (INF) Treaty. This includes all three lines of effort in the 
administration's INF integrated strategy: diplomatic, economic, and 
military. The North Atlantic Council made a strong, unified statement 
in December 2017. The statement noted that full compliance with the INF 
Treaty is essential to strategic stability and collective allied 
security, affirmed the United States is in compliance with the Treaty 
while declaring Russia's conduct raises serious concerns regarding its 
own compliance, and highlighted the Alliance's shared goal of returning 
Russia to full and verifiable compliance with the Treaty.
DRL
    Question 6. It is crucial for DRL to be involved in review both DCS 
and FMS proposed arms sales to ensure that this crucial form of U.S. 
Security Assistance is not undermining U.S. policies and objectives to 
promote human rights abroad.

   Will you commit that DRL will be involved in reviewing all FMS and 
        DCS cases in which they have human rights concerns regarding 
        the recipient country?
   Do you commit to giving DRL equal weight to the recommendations of 
        the regional bureaus and PM regarding all such cases?
   If necessary, will you grant DRL direct access to you to make a 
        case for denial or modification of a sale for which they have 
        concerns?''

    Answer. DRL is a vital part of the Department's arms sales reviews, 
and human rights is a key criteria in considering arms transfers as 
codified in the U.S. Conventional Arms Transfer Policy (CAT Policy), 
Presidential guidance that outlines the criteria for case by case 
review of all arms sales. I can assure you that if I am confirmed I 
will continue to respect the vital role that DRL plays in arms sales 
reviews and will ensure that human rights concerns that DRL or other 
offices raise are taken seriously. It is my understanding that a 
process exists by which DRL or other offices can make a case to me for 
denial or modification of a sale about which they have concerns. I will 
maintain this practice, if confirmed.
    All arms transfer decisions are guided by the criteria outlined in 
the CAT Policy, which requires that we maintain the appropriate balance 
between legitimate arms transfers to support U.S. national security and 
that of our allies and partners, and

    Answer. the need for restraint against the transfer of arms that 
would enhance the military capabilities of hostile states, serve to 
facilitate human rights abuses or violations of international 
humanitarian law, or otherwise undermine international security.
Elliot Broidy
    Question 7. Recent reporting revealed that in or about October 2014 
2017, Elliot Broidy presented President Trump with a proposal to 
recruit a ``thousands-strong international Muslim army--to be advised 
by retired Army Gen. Stanley McChrystal'' and that ``the team behind 
the Muslim army plan was led by McChrystal.''

   Were you ever aware of this plan during your time as a Director at 
        the McChrystal group, Deputy Assistant to the President in the 
        White House, or Senior Advisor at the Department of State?

    Answer. No.

    Question 8. If so, please describe what you knew about the plan and 
when you knew it. Please also describe your assessment of the 
feasibility and policy implications of this plan.

    Answer. N/A
DRL

    Question 9.  You answered only one of the three questions I 
submitted to you in writing on the role of DRL in reviewing DCS and FMS 
proposed arms sales. Please answer the following:

   Do you commit to giving DRL equal weight to the recommendations of 
        the regional bureaus and PM regarding all such cases?

    Answer. Yes.

    Question 10.  If necessary, will you grant DRL direct access to you 
to make a case for denial or modification of a sale for which they have 
concerns?

    Answer. Yes.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Andrea Thompson by Senator Edward J. Markey

    Question 1. Do you believe achieving the gold standard--securing a 
commitment by other nations not to enrich or reprocess--should be a 
prerequisite for concluding a 123 agreement with the United States? Why 
is the Trump administration still conducting an internal process to 
decide what concessions we might be willing to offer to Saudi Arabia to 
try and conclude a 123 agreement? Will you commit to getting answers 
and briefing me once this ``process'' is concluded and before any 
formal discussions with Saudi Arabia?

    Answer. As I testified, I have not been privy to the talks to date 
with Saudi Arabia, but, if confirmed, it will be my goal to have the 
strongest nonproliferation standards possible. The United States has a 
longstanding policy of limiting the spread of enrichment and 
reprocessing capabilities around the world. If confirmed, I commit to 
keeping the committee fully abreast of the status of all 123 agreement 
negotiations.

    Question 2. Has the U.S. Government raised its concerns with Japan 
over its continued reprocessing of spent fuel into separated plutonium 
when: 1) it already has 48 tons of separated plutonium, 2) Japan does 
not have an operating facility to turn its plutonium into fuel for 
nuclear reactors, and 3) the vast majority of Japan's nuclear reactors 
are not currently operating anyway? Do you think the United States 
should consider re-negotiating its 123 agreement with Japan over its 
continued plutonium production?

    Answer. As I testified during my confirmation hearing, I assure you 
that I will dig into this issue, if confirmed. As I told the committee, 
I have great confidence in our diplomatic relationship with the 
Japanese. As stalwart partners on both nonproliferation and civil 
nuclear energy, the United States and Japan regularly discuss a wide 
range of related issues, including Japan's nuclear fuel management 
policies.

    Question 3. If you agree that the New START Treaty is beneficial to 
the United States, then why hasn't the Trump administration announced 
its intent to pursue a 5 year extension of the Treaty until 2026? Does 
the Trump administration not support pursuing such an extension?

    Answer. The stated policy of the Trump administration is that the 
United States will continue to fully implement New START, which 
contributes to preserving strategic stability between the United States 
and Russia and is a critical component of global nuclear 
nonproliferation efforts. If confirmed, I look forward to participating 
in discussions on the next steps on New START Treaty.

    Question 4. If New START is beneficial to the U.S., why wouldn't we 
announce our intent to pursue extending the central limits? Wouldn't 
that send a positive signal about our leadership on arms control and 
reduction efforts around the world without prematurely committing us 
into anything?

    Answer. If confirmed, I look forward to supporting U.S. actions to 
continue to fully implement New START, which contributes to preserving 
strategic stability between the United States and Russia and is a 
critical component of global nuclear nonproliferation efforts. I 
understand the administration's immediate focus is on the next data 
exchange, which will provide the numbers of U.S. and Russian strategic 
offensive arms as of February 5, 2018. The United States hopes to 
exchange this data with Russia in late February or early March. As I 
testified, we have a few years to assess before making any decisions on 
the extension of New START, but it was a very promising sign that both 
parties complied with the central limits to the New START agreement by 
February 5.

    Question 5. Do you believe the Iran nuclear agreement is in the 
U.S. national security interest?

    Answer. The President and the administration have been clear about 
concerns regarding the JCPOA. As I testified during my nomination 
hearing, I have broader concerns about Iran's activities as they extend 
their footprint across the Middle East and the globe. Iran's continued 
malign activities in the region, including ballistic missile activities 
and support for terrorism and regional proxies, undermine expectations 
that the JCPOA would positively contribute to regional and 
international peace and security. The President has requested that 
Congress work with the administration to address the JCPOA's flaws, 
including through amending and strengthening the Iran Nuclear Agreement 
Review Act (INARA). In parallel, I understand discussions are underway 
in Europe. If confirmed, I look forward to being part of these 
discussions to ensure the JCPOA contributes to regional and 
international peace and security.

    Question 6. If the United States believes that Iran is not in 
compliance with its commitments under the nuclear deal, why has the 
United States not engaged in the formal dispute resolution process 
outlined in the Iran deal that is supposed to be used by any party that 
believes other parties to the agreement are not meeting their 
commitments?

    Answer. Although I am not yet engaged in these discussions, I 
understand the United States has engaged Iran directly and in 
cooperation with our P5+1 partners to ensure strict technical 
implementation of the deal. While to date the United States has not 
deemed it necessary to invoke the dispute resolution mechanism 
contained in the JCPOA, you are correct that it is a tool available to 
the United States. The United States continues to uphold its JCPOA 
commitments and continues to hold Iran strictly accountable to its 
nuclear-related commitments under the deal--including its obligation to 
comply with all IAEA requests for access to sites the Agency feels it 
needs to visit in order to carry out its verification responsibilities 
in Iran.

    Question 7. How would the other parties to the agreement react to 
the United States unilaterally pulling out of the deal? Is the Trump 
administration ready to impose secondary sanctions on European 
companies and banks like Airbus and DeutscheBank?

    Answer. While President Trump has made clear that we must fix the 
flaws in the JCPOA or the United States will withdraw, the 
administration has not announced any intention to end participation in 
the JCPOA at this time, and the United States continues to uphold its 
JCPOA commitments. As I understand the current approach, with the 
United States is engaging European partners to achieve a commitment to 
address the deficiencies identified in the deal and develop a shared 
understanding of how to counter Iran's broader destabilizing 
activities. Part of this will be to negotiate in some form a 
supplemental agreement that would impose new multilateral sanctions if 
Iran thwarts inspections or gets too close to the capability to produce 
fissile material for a nuclear weapon. Additionally, the United States 
is seeking an agreement that provides strong consequences, including 
new sanctions, if Iran develops or tests long-range missiles.

    Question 8. If the United States leaves the Iran nuclear deal, what 
do you think the implications are for international nuclear 
nonproliferation efforts? Do you think reneging on commitments we made 
and trying to change them either be re-imposing sanctions or taking 
legislative action will make it easier or more difficult to negotiate 
nonproliferation agreements with other countries (like North Korea)?

    Answer. While President Trump has made clear his direction to 
negotiators to fix the flaws in the JCPOA or the United States will 
withdraw, the administration has not announced any intention to end 
participation in the JCPOA at this time. The United States continues to 
uphold its JCPOA commitments, and to hold Iran strictly accountable to 
its nuclear-related commitments under the deal--including those related 
to IAEA inspector access. European partners have signaled a willingness 
to cooperate with the United States to address Iran's malign actions 
outside the JCPOA and other long term proliferation challenges where 
international support remains crucial, including North Korea.
    Regardless of the future of the JCPOA, Iran's nuclear activities 
must remain exclusively peaceful and Iran must cooperate fully with its 
continuing NPT and related IAEA safeguards obligations. The global 
nonproliferation regime, and the NPT in particular, must be able to 
address cases of noncompliance. The strength and durability of the NPT 
depends on common efforts of nations around the world to reinforce the 
nuclear nonproliferation regime and to combat threats to international 
security.

    Question 9. Why do you believe tax dollars are better spent 
investing in new nuclear capabilities rather than investing more 
heavily in diplomacy or even conventional systems? Won't they just 
provide the justification countries like Russia are looking for not to 
comply with their commitments?

    Answer. The 2018 Nuclear Posture Review seeks to deter potential 
adversaries from thinking they can gain any advantage through the use 
of nuclear weapons and seeks to encourage Russia to engage seriously on 
reducing its large disparity of non-strategic nuclear weapons. The 
deterrence effects that nuclear weapons provide are unique and 
essential to preventing nuclear attack--the only existential threat to 
the United States and its allies and partners. The administration's 
nuclear modernization program remains the most effective and least 
costly approach to sustaining the U.S. nuclear arsenal and an effective 
nuclear deterrent.

    Question 10. Do you believe we need the ``supplements'' called for 
in the recently-released Nuclear Posture Review? If so, why? Please 
explain for both the low-yield SLBM and then the Sea-Launched Cruise 
Missile.

    Answer. As outlined in the 2018 NPR, these supplements create 
incentives for Russia to return to diplomacy on reducing the disparity 
in non-strategic nuclear weapons. As the 2018 NPR states, these 
supplements will ``provide a more diverse set of characteristics 
greatly enhancing our ability to tailor deterrence and assurance; 
expand the range of credible U.S. options for responding to nuclear or 
non-nuclear strategic attack; and, enhance deterrence by signaling to 
potential adversaries that their concepts of coercive, limited nuclear 
escalation offer no exploitable advantage.'' They enhance crisis and 
strategic stability by raising a potential adversary's risks and making 
clear the United States has both the means and the willingness to 
respond at all levels of conflict. This raises the stakes for 
adversaries, induces their restraint, and thereby reinforces stability.
    A low-yield ballistic missile (LYBM) is not a new warhead as only 
nuclear components already present in the stockpile will be used. The 
LYBM is necessary to achieve our tailored deterrence objectives and to 
meet the roles of nuclear weapons described in the 2018 Nuclear Posture 
Review (NPR). The LYBM will use the existing W76-1 warhead, but will be 
configured to provide the President with an additional response option 
to deliver a low-yield nuclear weapon able to overcome advanced 
adversary air defenses. The NPR calls for the pursuit of a sea-launched 
cruise missile (SLCM) capability that can be fielded in about 7-10 
years, pending additional study. The NPR further notes that the United 
States may reconsider the pursuit of a SLCM ``if Russia returns to 
compliance with its arms control obligations, reduces its non-strategic 
nuclear arsenal, and corrects its other destabilizing behaviors.'' The 
pursuit of a nuclear SLCM capability will enhance deterrence in a 
strategic environment that has significantly worsened since the 2010 
NPR. Both supplements would be compliant with all treaties and 
agreements, including obligations under the New START Treaty.

    Question 11. Please describe how America's allies and partner 
nations have responded to the Nuclear Posture Review. Have any 
expressed concerns with the policies it outlines? If so, please 
describe the specific concerns shared.

    Answer. While public responses of allied and partner government 
officials have varied since the February 2 release of the Nuclear 
Posture Review (NPR), allies expressed gratitude for the opportunity to 
hold confidential consultations with the United States and provide 
their views during the drafting process of the NPR, and stated that 
they were unsurprised by the final report. While our consultations 
produced a variety of views nearly all U.S. allies expressed concern 
about the deteriorating security environment and appreciation for our 
continued commitment to extended deterrence and to our long-term 
nonproliferation and disarmament goals.

    Question 12. On what basis does the administration believe that 
developing and possibly deploying a new, road mobile ground-launched 
cruise missile will convince Russia to return to compliance with the 
INF Treaty? How does this enhance our diplomatic leverage? Isn't it 
just throwing good money after a weapons system we don't really need or 
want while backing us into a corner if Russia doesn't ``back down?''

    Answer. The administration remains committed to the INF Treaty, and 
its integrated strategy of diplomatic, economic, and military measures 
seeks to return Russia to full and verifiable compliance. Since the 
United States publicly announced Russia's violation in 2014, Russia has 
taken no step to return to compliance. The U.S. integrated strategy 
includes a review of options for a conventional, ground launched 
intermediate range missile system, which would enable the United States 
to better defend the United States and allies should Russia not return 
to compliance. The purpose is to make clear to Russia that it will be 
less secure--not more--if it persists in its violation, and to deny 
Russia the military advantage it has sought with the development of a 
prohibited system. This step does not violate U.S. obligations under 
the Treaty, and will be reversed if Russia returns to compliance.

    Question 13. Doesn't the development of a new GLCM provide Putin a 
propaganda victory and a ``legitimate'' reason to blame the U.S. for 
the collapse of the INF Treaty and begin deploying large numbers of 
illegal missiles without any constraints?

    Answer. No. The United States is in compliance with the Treaty. 
Russia is developing an illegal missile system in spite of the 
constraints of the Treaty. The administration's review of military 
concepts and options to induce Russia to return to compliance, 
including options for a conventional, ground launched intermediate 
range missile systems, does not violate U.S. obligations under the 
Treaty. As the administration has described publicly, this step will be 
reversed if Russia returns to compliance.

    Question 14. How did our NATO allies react to the news that the 
United States plans to develop a new road mobile GLCM that if deployed 
would necessarily be placed in Europe? To your knowledge, are there any 
NATO or East Asian allies that would allow the United States to base a 
new road mobile ground launched cruise missile on their territory? If 
the development of a new GLCM becomes a controversial issue within the 
alliance, wouldn't that play into Moscow's efforts to divide the 
alliance and take the spotlight off its violation?

    Answer. I understand that the administration continues to keep 
European and East Asian allies apprised of its efforts to seek Russia's 
return to full and verifiable compliance with the Intermediate Range 
Nuclear Forces (INF) Treaty. If confirmed, maintaining allied cohesion 
and responding in concert will be a critical element of U.S. diplomatic 
pressure to bring Russia back into compliance. The North Atlantic 
Council made a strong, unified statement in December 2017. It noted 
that full compliance with the INF Treaty is essential to strategic 
stability and collective allied security, affirmed the United States is 
in compliance with the Treaty while declaring Russia's conduct raises 
serious concerns regarding its own compliance, and highlighted the 
Alliance's shared goal of returning Russia to full and verifiable 
compliance with the Treaty.

    Question 15. To help resolve the noncompliance issues, will the new 
administration consider offering transparency measures to address the 
Russian charge that U.S. SM-3 launchers in Europe can contain ground 
launched cruise missiles?

    Answer. If confirmed, I will continue to engage Russian officials 
in multiple venues, including the Special Verification Commission 
(SVC), to explain in a transparent, substantive, and constructive 
manner why U.S. actions in these areas are compliant with the INF 
Treaty. In December 2017, the United States publicly detailed these 
positions in a fact sheet on the Department of State website.

    Question 16. In testimony to the House Armed Services committee in 
March, Vice Chairman of the Joint Chiefs of Staff Gen. Paul Selva 
stated that ``There are no military requirements we cannot currently 
satisfy due to our compliance with the INF Treaty.'' Do you agree with 
this statement?

    Answer. General Selva's comments appear to reinforce the 
administration's approach to finding a diplomatic solution to Russia's 
violation, and preserving the INF Treaty. If confirmed, I commit to 
supporting such a diplomatic approach to bring Russia back into 
compliance with its INF obligations.



                               __________


     Responses to Additional Questions for the Record Submitted to
                Andrea Thompson by Senator Jeff Merkley

    Question 1. The 2018 Nuclear Posture Review (NPR) appears to be a 
major departure from the previous administration which reduced the role 
and number of nuclear weapons. Is it your understanding that the Trump 
administration will not seek a numerical increase in the number of 
deployed or non-deployed nuclear weapons?

    Answer. The 2018 Nuclear Posture Review (NPR) represents broad 
continuity with decades of U.S. deterrence thinking. It fully endorses 
the planned nuclear modernization program, which is a one-for-one 
replacement of current weapons with similar systems, and adds two 
supplements to provide flexible capabilities that enable a tailored 
strategy without calling for an increase in the numbers of U.S. 
strategic nuclear forces. The NPR further affirms the U.S. commitment 
to continue abiding by all of its obligations under the New START 
Treaty, the Intermediate Range Nuclear Forces (INF) Treaty, and all 
other arms control treaties and agreements to which the United States 
is a party.
    The near-term low-yield ballistic missile remains accountable under 
the New START Treaty and will use existing warheads and missile bodies. 
The longer-term sea-launched cruise missile (SLCM) returns a capability 
that the United States deployed for decades, and will use a warhead 
based on a previous design, although the specific design has not yet 
been selected. Neither represents a new capability nor does the 
administration expect the supplements will lead to a growth in the U.S. 
stockpile. Moreover, the NPR states that the United States may 
reconsider pursuit of the SLCM ``if Russia returns to compliance with 
its arms control obligations, reduces its non-strategic nuclear 
arsenal, and corrects its other destabilizing behaviors.''

    Question 2. The 2018 NPR calls--for this first time since the 
1980's--to potentially develop new nuclear weapons, including those 
that are lower yield, and thus, arguably more usable. Do you believe 
these low-yield weapons would serve as a deterrent in a conventional 
war?

    Answer. One of the roles articulated in the 2018 Nuclear Posture 
Review (NPR) is to deter nuclear and non-nuclear attack. In his preface 
to the report, Secretary of Defense Mattis states: ``This review rests 
on a bedrock truth: nuclear weapons have and will continue to play a 
critical role in deterring nuclear attack and in preventing large-scale 
conventional warfare between nuclear-armed states for the foreseeable 
future.'' If confirmed, I would support this approach, which is 
consistent with more than 70 years of U.S. nuclear weapons policy and 
all previous NPRs.

    Question 3. Does the development of a new low-yield and more usable 
weapon imply the United States is open to first use of nuclear weapons?

    Answer. In its more than 70 years of possessing nuclear weapons, 
the United States has never had a no-first-use or ``sole purpose'' 
policy of nuclear weapons use. As the 2010 Nuclear Posture Review (NPR) 
stated, the security conditions for a ``sole purpose'' policy did not 
exist. Since 2010, those security conditions have worsened. The 2018 
NPR seeks to provide greater clarity on the conditions that could lead 
the United States to consider employing nuclear weapons. I understand 
the drafters sought to better clarify the ``extreme circumstances'' 
that could lead the United States to consider a nuclear response in 
order to increase stability by mitigating miscalculations and risk-
taking by potential adversaries.

    Question 4. What impact would U.S. first use, or the threat there 
of, do to international stability?

    Answer. Consistent with U.S. policy over the past 70 years and all 
previous Nuclear Posture Reviews (NPRs), the United States has not 
adopted a no first-use nor ``sole purpose'' doctrine. The 2010 NPR 
concluded that the conditions in the security environment at that time 
were not conducive to such policies, and the security environment has 
since deteriorated further. As declared in the 2018 NPR, the United 
States would only consider the employment of nuclear weapons in extreme 
circumstances to defend the vital interests of the United States or its 
allies and partners. The United States will not use or threaten to use 
nuclear weapons against non-nuclear-weapon States that are Party to the 
Treaty on the Non-Proliferation of Nuclear Weapons (NPT) and that are 
in compliance with their nuclear non-proliferation obligations.

    Question 5. Do you believe nuclear weapons can or should have a war 
fighting role?

    Answer. The fundamental nature of deterrence is to decisively 
influence an adversary's decisions in order to deter attack. Thus, 
nuclear weapons are not a warfighting capability but a deterrent 
capability.

    Question 6. Do the development of these weapons mean that the Trump 
administration disagrees with President Reagan's often repeated adage 
that: ``a nuclear war cannot be won, and must never be fought?''

    Answer. The 2018 Nuclear Posture Review (NPR) reflects continuity 
between this administration's strategy-driven approach and President 
Reagan's adage. The report states: ``As Secretary of Defense Mattis has 
observed, `a safe, secure, and effective nuclear deterrent is there to 
ensure a war that can never be won, is never fought.' '' In his preface 
to the NPR, Secretary Mattis also wrote ``nuclear forces, along with 
our conventional forces and other instruments of national power, are 
therefore first and foremost directed towards deterring aggression and 
preserving peace.''

    Question 7. You testified to the fact that the continued 
implementation of the New START Treaty remains in the U.S. national 
security interest. You also confirmed that Russia has complied by 
meeting the Treaty's central limits as required by February 5, 2018. 
What are your plans to negotiate an extension of the Treaty for an 
additional five years until 2026?

    Answer. If confirmed, I look forward to supporting U.S. actions to 
continue to fully implement New START, which contributes to preserving 
strategic stability between the United States and Russia and is a 
critical component of global nuclear nonproliferation efforts. I 
understand the administration's immediate focus is on the next data 
exchange, which will provide the numbers of U.S. and Russian strategic 
offensive arms as of February 5, 2018. The United States hopes to 
exchange this data with Russia in late February or early March. As I 
testified, we have a few years to assess before making any decisions on 
the extension of New START, but it was a very promising sign that both 
parties complied with the central limits to the New START agreement by 
February 5.

    Question 8. If confirmed, your position will be responsible for 
leading negotiations with other nations on civilian nuclear cooperation 
agreements (123 agreements). The Trump administration is reportedly 
considering negotiating a 123 agreement with Saudi Arabia. You 
testified to the fact that you would seek ``the highest (non-
proliferation) standard achievable.'' Can you commit that the 
administration would accept no less than the ``Gold Standard'' of 
prohibiting uranium enrichment or plutonium reprocessing) achieved with 
the United Arab Emirates (UAE)?

    Answer. As I testified, I have not been privy to the talks to date 
with Saudi Arabia, but, if confirmed, it will be my goal to have the 
strongest nonproliferation standards possible. The United States has a 
longstanding policy of limiting the spread of enrichment and 
reprocessing capabilities around the world.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Andrea Thompson by Senator Cory A. Booker

    Question 1. One of the most dangerous developments of recent years 
has been the proliferation of nuclear weapons in South Asia. Since the 
1998 tests, India and Pakistan have both deployed increasingly 
sophisticated nuclear weapons on a range of platforms. A nuclear war in 
South Asia could easily lead to millions of casualties and the United 
States needs to do everything in its power to prevent such a conflict. 
I am very alarmed that our confrontational approach to Pakistan may 
endanger our ability to work with them on these vital issues. That 
being said:

   What are the plans to improve strategic stability in South Asia to 
        move India and Pakistan away from the precipice of nuclear war? 
        Will you personally lead talks on this subject?

    Answer. Pakistan and India both continue to produce fissile 
material for nuclear weapons and to expand their nuclear weapons and 
missile stockpiles. I share your concern regarding the increased 
security challenges that accompany growing stockpiles, the effects of 
certain actual or potential weapons programs upon stability, and the 
risk that a conventional conflict between India and Pakistan could 
escalate to include nuclear use.If confirmed, one of my first 
priorities will be to resume the Security, Strategic Stability, and 
Nonproliferation talks with Pakistan, which provide a dedicated venue 
to exchange views on Pakistan's intentions and defense needs, as well 
as strategic stability. I will also seek to discuss these important 
issues with India as we strengthen our bilateral relationship.

    Question 2. One of the most dangerous developments of recent years 
has been the proliferation of nuclear weapons in South Asia. Since the 
1998 tests, India and Pakistan have both deployed increasingly 
sophisticated nuclear weapons on a range of platforms. A nuclear war in 
South Asia could easily lead to millions of casualties and the United 
States needs to do everything in its power to prevent such a conflict. 
I am very alarmed that our confrontational approach to Pakistan may 
endanger our ability to work with them on these vital issues. That 
being said:

   What recent talks have been held with Pakistan and India regarding 
        these issues, and what were the outcomes?

    Answer. I understand that the last formal Strategic Security 
Dialogue that focused on these issues with India both took place in May 
2016. If confirmed, I look forward to being fully briefed on these 
talks, their outcomes, and implementation efforts to date.

    Question 3. One of the most dangerous developments of recent years 
has been the proliferation of nuclear weapons in South Asia. Since the 
1998 tests, India and Pakistan have both deployed increasingly 
sophisticated nuclear weapons on a range of platforms. A nuclear war in 
South Asia could easily lead to millions of casualties and the United 
States needs to do everything in its power to prevent such a conflict. 
I am very alarmed that our confrontational approach to Pakistan may 
endanger our ability to work with them on these vital issues. That 
being said:

   What is the administration view of India's development of what is, 
        essentially, an ICBM in the form of the AGNI V? Can this 
        missile range all of the United States?

    Answer. The administration continues to urge all states with 
nuclear weapons to exercise restraint regarding missile capability 
testing. The administration encourages efforts to promote confidence 
building and stability and to discourage actions that might destabilize 
the region. India advertises the AGNI V as a deterrent and having a 
range of approximately 5000 km.

    Question 4. One of the most dangerous developments of recent years 
has been the proliferation of nuclear weapons in South Asia. Since the 
1998 tests, India and Pakistan have both deployed increasingly 
sophisticated nuclear weapons on a range of platforms. A nuclear war in 
South Asia could easily lead to millions of casualties and the United 
States needs to do everything in its power to prevent such a conflict. 
I am very alarmed that our confrontational approach to Pakistan may 
endanger our ability to work with them on these vital issues. That 
being said:

   What are your ideas for slowing or ending the arms race in South 
        Asia?

    Answer. If confirmed, I would encourage India and Pakistan to 
resume dialogue with each other on this important issue, and I would 
encourage countries in possession of nuclear weapons to meet to discuss 
common concerns, confidence building, and risk reduction mechanisms.

    Question 5. One of the great challenges we face today is the spread 
of dual use technology that enables nuclear or other WMD proliferation. 
In some cases countries lack the capacity to enforce their United 
Nations Security Council Resolution 1540 obligations to prevent such 
proliferation. In other cases, countries ignore the proliferation 
activities of their national companies. We need to do everything 
possible to prevent proliferation. I was very concerned to see the FY 
2019 request for NADR funds cut by nearly one-third from the levels 
appropriated in FY 18:

   Given the role that NADR funding plays in support of the Export and 
        Related Border Security Program in improving countries 
        capacities to meet their UNSCR 1540 obligations and prevent 
        proliferation, why has this funding request come in so much 
        below the FY 2018 levels?

    Answer. The FY 2019 funding request for the Export Control and 
Related Border Security Program (EXBS) was straight-lined from the FY 
2018 level at $59.6 million. While the overall NADR request was 
reduced, I understand that funding was protected for key WMD 
nonproliferation programs in order to prevent them from being adversely 
affected.

    Question 6. One of the great challenges we face today is the spread 
of dual use technology that enables nuclear or other WMD proliferation. 
In some cases countries lack the capacity to enforce their United 
Nations Security Council Resolution 1540 obligations to prevent such 
proliferation. In other cases, countries ignore the proliferation 
activities of their national companies. We need to do everything 
possible to prevent proliferation. I was very concerned to see the FY 
2019 request for NADR funds cut by nearly one-third from the levels 
appropriated in FY 18:

   Given that North Korea has built its nuclear program by using 
        illicit procurement and financial networks, many of which 
        involve China, what additional measures will the administration 
        consider pursuing with China to inhibit the North Korean 
        program?

    Answer. If confirmed, I will prioritize U.S. diplomacy to bring 
maximum pressure on North Korea and cut off its capacity to violate the 
U.N. Security Council resolutions. I look forward, if confirmed, to 
being fully briefed on our current range of actions to press Chinese 
officials to do more to fully implement the requirements set out in the 
U.N. Security Council Resolutions.
    If confirmed, I also look forward to reviewing and enhancing our 
broader efforts to bolster the ability of high-risk countries to meet 
UNSCR requirements and prevent the diversion of WMD-related materials 
to rogue states and terrorists. For example, EXBS programs are active 
in critical transshipment hubs like Malaysia, Singapore, Vietnam, South 
Africa, Tanzania, and Panama, and in countries that pose proliferation 
financing risks in the Asia Pacific, Middle East and North Africa, and 
South and Central Asia.

    Question 7. The Comprehensive Test Ban Treaty is a cornerstone of 
both the efforts to prevent the spread of nuclear weapons and to verify 
the activities of countries that have nuclear weapons through the use 
of international monitoring. The United States has signed but not 
ratified the treaty.

   Does the Trump administration support United States ratification of 
        the CTBT?
   Does the administration support continued American funding for the 
        Comprehensive Test Ban Treaty Organization and the 
        international monitoring stations?

    Answer. I understand that the administration will not seek 
ratification of the Comprehensive Nuclear Test Ban Treaty, but the 
United States intends to abide by its unilateral nuclear explosive 
testing moratorium and calls on all states possessing nuclear weapons 
to declare or maintain a moratorium on nuclear explosive testing.
    Further I understand that the United States will continue to 
support the Comprehensive Nuclear Test Ban Treaty Organization 
Preparatory Commission's development and operation of the International 
Monitoring System and supporting systems, which serve to monitor for 
nuclear tests and also provide collateral benefits.

    Question 8. I am concerned by calls in the Nuclear Posture Review 
for the development of new low yield warheads to be deployed on sea 
based platforms alongside higher yield systems. My view is that this 
can lead to a dangerous situation in which Russia (or another 
adversary) would not know what sort of warhead was on an incoming 
system.

   What is the rationale behind the development of the low yield 
        nuclear warheads?
   How do you see this warhead impacting strategic stability or crisis 
        stability in a conflict situation?

    Answer. While I was not part of the deliberations on the 2018 
Nuclear Posture Review (NPR), that document recommends pursuing 
supplemental low-yield capabilities that provide flexibility and 
bolster the credibility of our deterrent force. These capabilities are 
meant to strengthen deterrence by denying potential adversaries any 
mistaken confidence that their limited nuclear employment can provide a 
useful advantage over the United States or its allies.
    This capability is intended to reinforce strategic stability and 
crisis stability. Russia has made clear in its statements and actions 
that it perceives some advantage by maintaining the existing disparity 
in non-strategic nuclear weapons. The low-yield sea-based capability 
demonstrates to Russia, in a measured way, that the United States has 
the ability to respond proportionately to Russia's use of non-strategic 
nuclear weapons. Expanding survivable U.S. response options beyond only 
high-yield weapons raises the nuclear threshold in crisis by 
introducing an additional risk to Russia and thereby enhances strategic 
stability.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Susan A. Thornton by Senator Robert Menendez

Indo-Pacific Strategy

    Question 1. Our National Security Strategy defines China as a rival 
and a revisionist power. It lays out that ``China and Russia challenge 
American power, influence, and interests, attempting to erode American 
security and prosperity.''

   If we view our relationship as zero-sum what incentive does China 
        have to working with us on issues such as North Korea, climate 
        change, or maritime disputes?

    Answer. As Secretary Tillerson stated during the Diplomatic and 
Security Dialogue with China in June 2017, the United States seeks a 
constructive and results-oriented relationship with China. If 
confirmed, I will pursue the bilateral relationship with China 
consistent with this vision, but remain clear-eyed on the need to stand 
up for our interests and those of our allies and partners whenever 
necessary. This includes pushing China to do more on collective 
security challenges, the most pressing of which is the North Korea's 
illegal ballistic missile and nuclear weapons program, our top national 
security priority. This also includes making sure that this remains a 
top agenda item in our discussions with senior Chinese officials. If 
confirmed, I will work to ensure that our economic relationship with 
China is fair and reciprocal and not marred by the unfair practices 
China has pursued in recent years. However, I will not shrink from 
responding to Beijing's challenges to the rules-based system, or from 
China's efforts to subvert the sovereignty of its neighbors and other 
Indo-Pacific nations, if confirmed. I will also remain committed to 
standing up for freedom and human dignity, and continue to push China 
to respect universal human rights and fundamental freedoms.

    Question 2.  What is our affirmative agenda with China? I know what 
we're doing to China but what (global and regional) issues are we 
actively trying to work with them on?

    Answer. When appropriate, we should seek to broaden practical 
cooperation and achieve results on issues of shared concern. If 
confirmed, I will seek to make progress and achieve results on issues 
like the U.S. opioid crisis, preventing global pandemics, and 
strengthening international peacekeeping efforts. We should also 
continue working with China to address regional challenges such as 
achieving lasting peace in Afghanistan. Previous successes the United 
States has had working with China on issues like wildlife trafficking 
and global health security show that it is possible to cooperate with 
China on issues of mutual interest.

    Question 3. Senior administration officials, including Secretary 
Tillerson, have said that human rights are ``embedded'' in U.S. policy. 
However, President Trump has called President Xi ``a very special man'' 
who is ``highly respected'' and a ``powerful representative of his 
people'' and left human rights off the agenda when he visited Beijing 
this past November. President Trump has boasted about having a ``great 
relationship'' with President Duterte who has killed his own people 
without due process--which President Trump appears to have a 
situational affection for--in his misguided drug war.

   Mrs. Thornton, do you agree with President Trump that President Xi 
        is a ``powerful representative of his people'' or that 
        President Duterte should be lauded and admired?

    Answer. I am troubled by the deterioration of the human rights 
environment in China. During my time as Acting Assistant Secretary, I 
have regularly condemned human rights violations and abuses in China, 
and raised and advocated for individual cases of concern with Chinese 
counterparts. With regard to the Philippines, the U.S. and the 
Philippines have a deep and broad relationship that has been a 
cornerstone of peace and stability in the region for over 70 years. It 
is built on shared values, and shared sacrifice for democracy. We 
should encourage greater respect for human rights, fundamental 
freedoms, and the rule of law, and believe that these obligations 
promote long-term security. I remain deeply concerned by reports of 
extrajudicial killings associated with the drug war. The United States 
has expressed concerns with the prosecution of the drug war on multiple 
occasions with the Philippine Government, and we should continue to do 
so. We should also continue strongly urging the Philippines to ensure 
its law enforcement efforts are carried out consistent with its human 
rights obligations.

    Question 4. Can you please explain in concrete terms what that 
means with respect to human rights in China, and two or three examples 
that you have acted on it?

    Answer. During my time as Acting Assistant Secretary, I regularly 
condemned human rights violations and abuses in China, and raised and 
advocated for individual cases of concerns with Chinese counterparts. 
At consecutive sessions of the United Nations Human Rights Council 
since February 2017, I ensured the United States raised our concerns 
publicly about reports of China's arbitrary detention and torture of 
lawyers and activists, constraints on civil society and religious 
practices, discrimination against/human rights abuses with respect to 
the denial of rights to Tibetans and Uighurs, the crackdown on peaceful 
political expression, and reprisals against human rights activists. In 
March 2017, I reviewed and approved how the Department of State's 
annual Human Rights Report detailed the continued widespread abuses of 
human rights and fundamental freedoms in China. Later that month, 
Secretary Tillerson made his first visit to China, during which he and 
I made clear that the United States would continue to advocate for 
human rights and fundamental freedoms, including freedom of religion 
and belief, universal values such as human rights and religious 
freedom. The following month, on the sidelines of the U.S.-China summit 
at Mar-a-Lago, I raised specific human rights cases of concerns with 
Chinese counterparts. In April 2017, we secured the release of an 
American businesswoman from Houston who had been in prolonged pretrial 
detention in China for over two years, one of several American citizens 
I have personally helped to overcome exit bans.
    Over the past year, I have also supported Department of State 
officials' attendance at the Chinese trials and sentencings of numerous 
human rights lawyers and activists who have reportedly faced serious 
mistreatment and torture while in detention, and private meetings 
privately with the wives and family members of those who have been 
detained. I have directed the drafting of Department of State 
statements marking the passing of Chinese Nobel Peace Prize Laureate 
Liu Xiaobo, the two-year anniversary of the launch of the Chinese 
Government's nationwide campaign of intimidation against defense 
lawyers and rights defenders, and the detention of Swedish citizen and 
Hong Kong bookseller Gui Minhai. I also approved the publication by our 
Embassy of a statement on International Human Rights Day, and a joint 
statement with the German Embassy on the sentencing of Chinese human 
rights defenders Wu Gan and Xie Yang.
    Among our most intensive efforts this year to advance our human 
rights agenda in China was our effort to secure Liu Xiaobo's freedom. 
In June 2017, the Department of State called on China to allow Liu 
Xiaobo access to international medical specialists and to be allowed to 
seek medical treatment abroad. In July, under my leadership, the Bureau 
of East Asian and Pacific Affairs arranged for a leading American 
cancer specialist to travel to Shenyang to visit and treat Liu, and 
reiterate calls for his ability to seek medical treatment abroad. 
Following Liu's passing, the Secretary released a statement calling for 
the release from house arrest of Liu's widow, Liu Xia, and her ability 
to depart China. If confirmed, I will continue to lead persistent 
public and private efforts to press for Liu Xia's ability to 
communicate freely and travel, including abroad.
    In December, the United States took action to promote 
accountability for serious human rights abuses in China by designating 
a former Chinese prison official under the December 2017 Executive 
Order implementing the Global Magnitsky Human Rights Accountability 
Act. Moreover, we have used our high-level meetings with the Chinese to 
raise U.S. concerns around issues such as China's foreign NGO 
management law, exit bans placed on U.S. citizens, and specific 
detentions of Chinese activists. I, and my colleagues in the Bureau of 
East Asian and Pacific Affairs, have met regularly with Chinese human 
rights lawyers and activists such as Chen Guangcheng, leaders of non-
government and non-profit organizations promoting greater respect for 
human rights in China such as Dui Hua Foundation founder John Kamm, and 
members of ethnic and religious minority groups such as World Uighur 
Congress president Dolkun Isa and Tibetan filmmaker Dhondup Wangchen. 
If confirmed, I will continue to raise our concerns about China's human 
rights issues, both in our private conversations and publicly, and 
encourage greater respect for human rights, fundamental freedoms, and 
the rule of law in China.

    Question 5. What points of leverage do you think the U.S. has, and 
what points would you be willing to use, to obtain freedom for Liu Xia, 
the widow of 2010 Nobel Peace Prize winner Liu Xiaobo?

    Answer. The United States remains deeply concerned about Liu Xia's 
well-being and freedom. I have helped lead persistent public and 
private high-level efforts to press for Liu Xia's ability to 
communicate freely and travel, including abroad. If confirmed, I will 
continue to review and make use of all tools at my disposal to press 
for Liu Xia's well-being and freedom of movement, including her freedom 
of expression and freedom to travel abroad as she chooses.

    Question 6. The administration's National Security Strategy focuses 
largely on China, but only references human rights once. Do you think 
this sends a message to China and the region that the administration is 
not concerned about the issue?

    Answer. Promoting respect for human rights and fundamental 
freedoms, including freedom of religion, remains a key component of 
American foreign policy. The President's National Security Strategy 
identifies as one of its four pillars the need to continue to advance 
America's influence abroad to protect our security and ensure our 
prosperity. Our advancement of democracy, human rights, and the rule of 
law have contributed to the success story of the Indo-Pacific region 
over the last half century, and if confirmed, I will continue to uphold 
and work to move forward these fundamental U.S. values in the region.
Taiwan
    Question 7. As you know, I am the co-chair of the Senate Taiwan 
Caucus and last week, the Senate Foreign Relations committee reported 
out of committee the Taiwan Travel Act which would encourage high-level 
engagement for U.S. officials to meet their Taiwan counter-parts.

   Do you agree that supporting high-level U.S. engagement with Taiwan 
        is in our national security interest?

    Answer. Taiwan has long been a vital U.S. partner, a democratic 
success story, and a force for good in the world. Taiwan shares U.S. 
values, has earned our respect, and continues to merit strong U.S. 
support.
    Consistent with the Taiwan Relations Act, United States officials 
regularly visit Taiwan to advance our unofficial relationship through 
the American Institute in Taiwan (AIT) and the Taipei Economic and 
Cultural Representative Office (TECRO), and vice versa. If confirmed, I 
would seek and consider opportunities for visits to Washington and 
Taipei by senior-level authorities that advance our unofficial 
relationship and enable substantive exchanges on issues of mutual 
interest and concern.

    Question 8. Should U.S. restrictions on visits between officials 
from the U.S. and Taiwan be removed or revised? If not, why should they 
remain in place?

    Answer. Under the umbrella of our unofficial relationship, the 
United States and Taiwan conduct, through the American Institute in 
Taiwan (AIT) and the Taipei Economic and Cultural Representative Office 
in the United States (TECRO), a broad range of normal interactions, 
including arms sales, visits, trade negotiations, and education and 
cultural exchanges.
    Consistent with the Taiwan Relations Act, U.S. officials regularly 
visit Taiwan to advance our unofficial relationship through AIT and 
TECRO, and vice versa.

    Question 9. Around the world, we have seen Taiwan's diplomatic 
channels close due to undue Chinese pressure in multiple capitols. We 
have witnessed Chinese warplanes fly over Taiwan and the use of 
commercial jets to violate airspace agreements.

   If confirmed, how do you plan to support our democratic partner in 
        countering undue Chinese influence?

    Answer. The United States has long maintained that cross-Strait 
differences are matters to be resolved peacefully, without the threat 
or use of force or coercion, and in a manner acceptable to the people 
on both sides of the Taiwan Strait. There is no change in our position. 
My commitments and assurances to Taiwan, including faithful 
implementation of the Taiwan Relations Act, are firm and long-standing.
    The United States has an enduring interest in cross-Strait peace 
and stability. I would encourage authorities in Beijing and Taipei to 
engage in constructive dialogue that seeks a peaceful resolution of 
differences acceptable to the people of both sides of the Taiwan Strait 
on the basis of dignity and respect. If confirmed, I would oppose to 
unilateral actions by either side to alter the status quo across the 
Strait.
South China Sea
    Question 10. I remain very concerned about China's long-term 
strategic intent and by China's aggressive program of land reclamation 
in the South China Sea over the past several years, including the 
placement of additional military assets on Woody Island in the 
Paracels, and the building of infrastructure in the Spratlys that could 
easily be turned to military use. China's continued efforts to coerce 
other claimants and change the status quo in waters claimed by the 
Philippines, Indonesia, Vietnam, Brunei and Malaysia -demands a 
powerful U.S. response.

   Beyond the conduct of freedom of navigation operations, which is 
        the purview of the Department of Defense, what should U.S. 
        strategy be in the South China Sea? Past diplomatic efforts 
        that called for self-restraint, no dredging and no 
        militarization have obviously failed.

    Answer. The United States should work with partners and allies to 
uphold the rules-based order throughout the region, including in the 
South China Sea. We should continue to insist that China and others 
respect international law in their approach to South China Sea 
disputes. We should to press China and all the South China Sea 
claimants to refrain from new construction on, and militarization of, 
disputed features, and to commit to managing and resolving disputes 
peacefully, without the threat or use of force or coercion. With 
respect to their maritime claims and activities, we should continue to 
engage both publicly and privately with all South China Sea claimants, 
including China, to eliminate restrictions to freedoms of navigation 
and overflight and other lawful uses of the sea that do not conform to 
international law as reflected in the Law of the Sea Convention. We 
also need to urge both China and other claimants to conclude a 
meaningful Code of Conduct for the South China Sea.
    We should keep engaging our allies and partners bilaterally and 
through plurilateral and in multilateral fora, including ASEAN, to 
advocate for respect for international law. As the primary multilateral 
institution in Southeast Asia, ASEAN has political weight greater than 
the sum of its parts, especially on contentious issues like those 
concerning the South China Sea. We should continue to encourage a 
unified ASEAN position that affirms and promotes the international 
rules and standards that underpin East Asian stability and prosperity. 
Additionally, ASEAN-centered institutions such as the East Asia 
Summit--in which the United States, China, and many regional allies and 
partners also participate--are additional venues in which we can play 
an active role to enhance respect for the rules-based order, including 
at the leaders level.

    Question 11. After the Olympics, the Vice President appeared to 
attempt to clarify our North Korea policy saying if the North Koreans 
want to talk, we'll talk. In Vancouver, Secretary Tillerson said that 
the North Koreans must demonstrate a commitment to denuclearization 
before talks can begin. President Trump has said the U.S. would be 
willing to talk ``under the right circumstances.''
    Under what specific conditions should the U.S. enter into 
negotiations with North Korea?

   An extended moratorium on North Korea missile and nuclear tests?
   An explicit declaration by Pyongyang that it will return to its 
        commitments under the September 2005 Six Party Talks agreement?

    Answer. The administration has stated an openness to talks with a 
credible partner. There has not been a credible indication from the 
North Korean regime that it wants to engage in meaningful dialogue. An 
announced and intentional moratorium from North Korea on missile and 
nuclear tests could be one way to demonstrate its readiness to talk. I 
don't believe the administration has any intention of returning to the 
mistakes of the past, and is mindful that North Korea has demonstrated 
its penchant for violating previous agreements.
Hong Kong
    Question 12. The U.S. has prided itself across different 
administrations in its support for democratic movements around the 
world. Yet it has been painfully quiet on Hong Kong, where the Chinese 
Government is methodically eroding Hong Kong's autonomy and the rights 
guaranteed to Hong Kong under the Basic Law.

   What steps has the administration taken the past year to counter 
        these developments, and what steps will it take to uphold Hong 
        Kong's autonomy?

    Answer. I share your concerns regarding the growing threats to One 
Country Two Systems, and pledge to support the defense of Hong Kong's 
high degree of autonomy.
    I firmly support, and will continue to advocate for, Hong Kong's 
highly developed rule of law, and respect for human rights and 
fundamental freedoms. I believe that societies are best served when 
diverse political views are protected and can be freely expressed.
    I believe that an open society, with the highest possible degree of 
autonomy and democratic participation, and governed by the rule of law, 
is essential for Hong Kong's stability and prosperity.
    The State Department has consistently called on the Central 
Government to honor its commitments to uphold the rule of law in Hong 
Kong, as well as to ensure lawful and procedural respect for the Basic 
Law. Hong Kong's highly respected rule of law system, the integrity of 
Hong Kong's legislature, and the independence of Hong Kong's judiciary, 
have been critical to the continued success of the Hong Kong Special 
Administrative Region.
    The June 2017 release of the State Department's ``Review of Key 
Developments in Hong Kong'' described several concerns related to the 
autonomy of Hong Kong and called on the Central Government to honor its 
commitments. State Department officials at all levels, including at 
Consulate General Hong Kong, regularly meet with government officials, 
activists, representatives from civil society, and private citizens to 
discuss a wide range of topics bearing on the interests of the United 
States and its friends and allies--foremost among them are Hong Kong's 
autonomy and human rights and fundamental freedoms.

    Question 13. If confirmed, would you support additional governance 
programming that supports the democratic movement in Hong Kong?

    Answer. Hong Kong's highly respected rule of law system, the 
integrity of Hong Kong's legislature, and the independence of Hong 
Kong's judiciary, have been critical to the continued success of the 
Hong Kong Special Administrative Region. If confirmed, I would support 
governance programming that strengthens the Hong Kong institutions that 
play critically important roles in protecting Hong Kong's high degree 
of autonomy and fundamental freedoms.

    Question 14. Do you believe the consensus view among more than 95 
percent of climate scientists that climate change is real and that 
combustion of fossil fuels, in combination with other anthropogenic 
activities that release greenhouse gases into the atmosphere, is 
causing climate change?

    Answer. President Trump made clear when the United States joined 
other G-20 countries in last year's G-20 Leaders' Declaration in 
stating that the administration remains committed to mitigating 
greenhouse gas emissions through, among other ways, increased 
innovation on sustainable and clean energy and energy efficiency, and 
working towards low greenhouse gas emissions energy systems. The United 
States will continue to support a balanced approach to climate 
mitigation, economic development, and energy security that takes into 
consideration the realities of the global energy mix. If confirmed, I 
will support the administration's commitment to continue helping our 
partner countries reduce emissions from forests and other lands, to 
adapt to the impacts of climate change, and to respond to natural 
disasters.

    Question 15. Given the significance of climate diplomacy to the 
U.S.-China relationship, and the significant investment that China is 
making at home and abroad in renewable energy development, will you 
work to restore the climate cooperation dialogue between the U.S. and 
China--a former cornerstone of the U.S.-China relationship?

    Answer. The United States seeks a constructive and results-oriented 
relationship with China, and as a leader in global energy, the United 
States is a critical force in advancing energy efficiency and clean 
energy efforts around the world as demand for energy increases. If 
confirmed, I will work to continue strengthening U.S. energy security 
and respond to energy challenges from around the region that affect 
U.S. economic policy and national security. I will also seek to broaden 
practical cooperation and achieve results on issues of shared concern 
in line with administration policy.
    If confirmed, I will have my bureau help promote an ``all of the 
above'' energy strategy focusing on secure, stable, diversified, and 
modern global energy systems that uses a broad range of market-based 
energy solutions, including renewable energy, advanced energy 
technologies, energy efficiency, oil and liquefied natural gas, and 
governance solutions, to advance U.S. interests, global energy 
security, and economic development.

    Question 16. Given how seriously every nation in the world take the 
threat of climate change, wherein every nation has committed to some 
degree to cut its carbon emissions, how will you aim to engage and 
convince China's neighbors to partner with the U.S. to meet their clean 
energy and energy self-reliance goals?

    Answer. The United States will continue to be a leader in clean 
energy and innovation, and we understand the need for transforming 
energy systems given the dynamic change in our own market in recent 
years. American businesses are at the forefront of innovation in the 
clean energy and energy efficiency technologies, and American workers 
are the best trained in the world. Our guiding principles should 
include universal access to affordable and reliable energy and open, 
competitive markets that promote efficiency and energy security. Over 
the past 10 years, the United States has shown that it can reduce 
emissions while growing the economy and promoting energy security. 
Since 2005, the United States' net greenhouse gas emissions have 
decreased 11.5 percent while the U.S. economy has grown 15 percent, 
adjusted for inflation. If confirmed, I will seek to engage with 
partners based on our track record of innovation and results.

    Question 17. If the President is serious about seeking a better 
deal for America under the Paris Agreement, how will conceding 
leadership to China result in outcomes that could objectively be seen 
as better for the U.S.?

    Answer. I believe the United States remains a leader in clean 
energy and innovation, and we are committed to lowering our greenhouse 
gas emissions through innovation to protect the environment while 
increasing economic growth. Over the past 10 years, the United States 
has shown that it can reduce emissions while growing the economy and 
promoting energy security. Since 2005, the United States' net 
greenhouse gas emissions have decreased 11.5 percent while the U.S. 
economy has grown 15 percent, adjusted for inflation.
Conflicts of Interest
    Question 18. If confirmed, you will be handling diplomatic 
relationships with countries that are significant U.S. trading 
partners. I am very concerned about possible conflicts of interest 
between our diplomacy and our President's overseas business 
arrangements. We know that the President owns assets in several 
countries. We also suspect that he has taken loans from foreign 
entities. But we still don't know the full extent of his holdings and 
the details of any foreign loans because he has not been fully 
transparent with the American people. The fact that China approved new 
trademarks for the Trump Organization and Ivanka Trump's company over 
the past year only underscores this point. One could imagine a 
situation where you, if confirmed, are negotiating an agreement with a 
country in which the President's business is trying to obtain 
trademarks, potentially presenting a conflict between what is in the 
financial interest of the President versus the economic interests of 
the American people at large.

   So my question to you is, without a public disclosure of the 
        President's business relationships how can you and the American 
        people know that your negotiations with other countries will 
        not benefit the President at the expense of ordinary Americans?
   And without a full public disclosure, how can you be sure that the 
        person you're negotiating with doesn't know more about the 
        President's business dealings than you do?

    Answer. I have consistently acted in the best interest of the 
United States Government and the American people throughout my 
government service and will continue to do so as Assistant Secretary if 
I am confirmed. I will never place the interests of any individual or 
company ahead of those of the American people.
    I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 19. During the U.S.-China Summit held last April in 
Florida and last November in Beijing, President Trump did not raise the 
question of respect for human rights and the rule of law in China and 
in Tibet. Since 1997, all U.S. Presidents have publicly challenged the 
sitting Chinese President to negotiate with the Dalai Lama or his 
representative to find a lasting solution to the Tibetan issue.

   Would you personally commit to pressing the Chinese leadership for 
        a resolution of the Tibetan issue through a speedy resumption 
        of dialogue with the Tibetan side, without preconditions?
   If appointed, would you recommend and make sure that President 
        Trump calls publicly on the Chinese President to address the 
        grievances of the Tibetan people through dialogue with the 
        Dalai Lama?

    Answer. I share your concerns about the lack of respect for human 
rights and rule of law in Tibet. If confirmed, I will urge Chinese 
authorities to engage in meaningful and direct dialogue with the Dalai 
Lama or his representatives, without preconditions, to lower tensions 
and resolve differences. I will also call on China to provide 
meaningful autonomy for Tibetans and cease restrictions on Tibetan 
religious, linguistic, and cultural practices, and speak out against 
Chinese Government interference in Tibetan religious matters, 
particularly the selection, education, and veneration of the 
reincarnate lamas who lead the faith. I will also recommend that the 
United States expresses publicly, and at the highest levels of 
government, U.S. concerns about restrictions on the rights of Tibetans 
and other ethnic and religious minorities in China and urge Chinese 
authorities to engage in meaningful and direct dialogue with the Dalai 
Lama or his representatives, without preconditions.
Chinese Political Prisoners
    Question 20. On behalf of Senator Schumer, from the great state of 
New York we wanted to ask you about Americans who have been detained in 
China. As of today, there are approximately 100 Americans detained or 
imprisoned in China. There are nearly 40 other Americans who are 
subject to ``exit bans'' and are therefore unable to leave China. 
Amongst those imprisoned is Li Kai, a New Yorker who was arrested by 
the Chinese authorities in September 2016 and has remained imprisoned 
in China.

   If confirmed, what are specific actions will you take as Assistant 
        Secretary to advocate for the prompt release Li Kai and all 
        other Americans imprisoned in China?

    Answer. The safety and security of U.S. citizens, including those 
who are detained in China, will be one my top priorities. I will do 
everything I can to protect the rights of U.S. citizens in China and 
elsewhere in the Asia-Pacific. When they are not, I will do everything 
I can to continually raise their cases with the Chinese. While we have 
managed in recent months to secure the return to the U.S. of several 
American citizens previously detained to subject to ``exit bans,'' I 
will certainly continue to advocate for progress on remaining cases. We 
have also recently added a new warning to our travel advisory for China 
regarding potential for arbitrary application of laws.
    I have been closely following the case of Li Kai, and I know the 
State Department, including our consulate in Shanghai, has been in 
regular contact with his family.
    This situation is extremely troubling, and we regularly raise Mr. 
Li's case with the Chinese. I have personally raised Mr. Li's case with 
high level Chinese officials, and if confirmed, I will continue to do 
so, advocating for Mr. Li's rights and urging China to return him home.



                               __________


     Responses to Additional Questions for the Record Submitted to
                Susan A. Thornton by Senator Marco Rubio

    Question 1. Our understanding from Wall Street Journal news reports 
and other sources is that the National Security Council convened a 
Policy Coordination committee conference call on Friday, May 26, 2017 
(hereinafter ``PCC conference call''), to discuss with NSC staff and 
other administration officials whether FBI agents should arrest or 
detain several officials from China's Ministry of State Security who 
had allegedly conducted official business while in the United States in 
violation of their transit visas, and whose plane was about to depart a 
New York airport. Did Acting Deputy Assistant Secretary of State for 
East Asian and Pacific Affairs Laura Stone (hereinafter ``Acting DAS 
Stone'') participate in this PCC conference call on May 26, 2017?

    Answer. I was out of the country on official travel on the date of 
the call. My understanding is that officials from USG agencies, 
including Acting DAS Stone, participated in an interagency secure call 
on May 26.
    While I did not participate in the meeting as I was on official 
travel, I was briefed in a secure environment on the details of this 
meeting when I returned. The State Department would be happy to provide 
a classified briefing as follow up to your question.
    I remain committed to protecting U.S. sovereignty, and to working 
closely with the law enforcement community to ensure the safety and 
security of the American people and that China does not engage in law 
enforcement activity in the United States without U.S. consent. If 
confirmed, I will continue to cooperate with interagency colleagues 
ensure China abides by President Xi's commitment to President Trump in 
Beijing in November to coordinate all law enforcement activities in the 
United States with U.S. authorities. I have pressed China to adhere to 
this commitment during my interactions with Chinese officials.

    Question 2. Did any other officials from the State Department, 
including the Bureau of East Asian and Pacific Affairs (hereinafter 
``EAP Bureau''), participate in this PCC conference call on May 26, 
2017? If yes, who?

    Answer. My understanding is that officials from several other 
bureaus from the State Department participated as well as many other 
interagency representatives.

    Question 3. During the PCC conference call on May 26, 2017, did 
Acting DAS Stone or any other EAP Bureau officials oppose, object to, 
or otherwise not support proposals for FBI agents to arrest or detain 
several officials from China's Ministry of State Security at a New York 
airport who had allegedly conducted official business while in the 
United States in violation of their transit visas?

    Answer. I believe we should be extremely concerned about actions by 
foreign officials in the United States that would be inconsistent with 
U.S. sovereignty, and we should take action to address this issue. My 
understanding is that in this, and in similar cases, the State 
Department advocated for a strong and appropriate response, consistent 
with Vienna Conventions and in a manner that supports and upholds U.S. 
interests.

    Question 4. Did you convey, in any way and at any time, any 
guidance or direction to Acting DAS Stone or any other EAP Bureau 
officials as to what position, posture, and/or actions the State 
Department in general or the EAP Bureau in specific should take in the 
PCC conference call on May 26, 2017, with regard to whether FBI agents 
should arrest or detain several officials from China's Ministry of 
State Security at a New York airport who had allegedly conducted 
official business while in the United States in violation of their 
transit visas? If yes, please describe your guidance or direction?

    Answer. No, as I was out of the country on official travel at that 
time.

    Question 5. If your answer to the previous question is no, please 
explain why not, especially given your position as Acting Assistant 
Secretary of State for East Asian and Pacific Affairs and your 
responsibility for the EAP Bureau's official actions? And did you 
deputize any other State Department employee to act in your absence?

    Answer. I did not participate in this impromptu working-level 
interagency call as I was on official travel out of the country.

    Question 6. Will you provide us with the Statement of Conclusions 
for the PCC conference call on May 26, 2017?

    Answer. My understanding is that as this was an impromptu 
interagency secure call, and therefore there was no formal Statement of 
Conclusions issued.
On Subsequent PCC Meeting to Discuss the May 26th Outcome
    Question 7. As we understand from Wall Street Journal news reports 
and other sources, the National Security Council convened in the 
following week a Policy Coordination committee meeting (hereinafter 
``PCC meeting'') to discuss, among other things related to U.S.-China 
relations, the outcome of the May 26th PCC conference call. Did you 
attend this subsequent PCC meeting?

    Answer. No. I also did not participate in the meeting, due to 
subsequent official travel.

    Question 8. During this subsequent PCC meeting, did you oppose, 
object to, or otherwise not support efforts to lay out a specific 
policy, plan of action, or other interagency understanding if the FBI 
should once again find itself either in the position to arrest or 
detain Chinese officials conducting official business in violation of 
their transit visas, or in another comparable situation?

    Answer. I did not participate in the meeting as I was on official 
travel. I was briefed in a secure environment on the details of this 
meeting when I returned.
    I remain committed to protecting U.S. sovereignty, and to working 
closely with the law enforcement community to ensure the safety and 
security of the American people and that China does not engage in law 
enforcement activity in the United States without U.S. consent. If 
confirmed, I will continue to cooperate with interagency colleagues 
ensure China abides by President Xi's commitment to President Trump in 
Beijing in November to coordinate all law enforcement activities in the 
United States with U.S. authorities. I have pressed China to adhere to 
this commitment during my interactions with Chinese officials.

    Question 9. During this PCC meeting, did you express or otherwise 
convey the view that the United States should not be confrontational 
towards China?

    Answer. I did not personally participate in the meeting as I was on 
official travel.
    I am committed to a clear-eyed and forthright approach to China. If 
confirmed, my approach will be to ensure that where we have 
differences, the U.S. Government confronts China directly.

    Question 10. Will you provide us with the Statement of Conclusions 
for the PCC meeting to discuss the outcome of May 26th PCC conference 
call?

    Answer. I am not aware of a Statement of Conclusions issued by the 
National Security Council for this meeting.

    Question 11. In February 2017, a group of 11 democratic 
governments--with whom the United States has historically partnered to 
advance human rights issues in China--sent a letter to the Chinese 
Minister of Public Security on the issue of torture and the secret 
detention of dozens of human rights lawyers (hereinafter ``February 
2017 letter''). The United States declined to sign the February 2017 
letter, which prompted an onslaught of negative media attention and 
unfortunately furthered the narrative that, in the words of the 
Washington Post editorial board, ``the Trump administration will play 
down human rights in its foreign policy.'' Please describe the State 
Department's decision-making process in making a recommendation on 
whether or not the United States should sign the February 2017 letter?

   Did you unilaterally make the decision on whether or not the State 
        Department should support the United States signing the 
        February 2017 letter? If yes, why?
   If your answer to the previous question is no, then did you make 
        any recommendation to Secretary of State Rex Tillerson or to 
        any other senior State Department official on whether or not 
        the United States should sign the February 2017 letter? If yes, 
        then what recommendation did you make and to whom did you 
        convey the recommendation? And did you consult with the Bureau 
        of Democracy, Human Rights and Labor (hereinafter ``DRL'') on 
        any such recommendation?

    Answer. The United States has repeatedly raised concerns over 
China's deteriorating human rights situation with Chinese officials 
through many different mechanisms and, if I am confirmed, I will work 
hard to ensure that we continue to do so. At the 34th session of the 
United Nations Human Rights Council in February 2017, the United States 
raised our concerns publicly about reports of China's arbitrary 
detention and torture of lawyers and activists. We also raised concerns 
about reports of torture in China in detail in the State Department's 
annual Human Rights Report on China released the following month. On 
the sidelines of the U.S.-China summit at Mar-a-Lago in April 2017, 
senior U.S. Department of State officials raised human rights prisoner 
cases of concern with Chinese counterparts. Over the past year, 
Department of State officials have attended the trials and sentencings 
of numerous human rights lawyers and activists who have reportedly 
faced serious mistreatment and torture while in detention, and met 
privately with their wives and family members. In July 2017, the 
Department of State marked the two-year anniversary of the launch of 
the Chinese Government's nationwide campaign of intimidation against 
defense lawyers and rights defenders and raised concerns about reports 
of their alleged torture and denial of access to independent legal 
counsel. In December, we took action to promote accountability for 
serious human rights abuses in China, in particular the detention and 
torture of human rights activist Cao Shunli, by designating a former 
Chinese prison official under the December 2017 Executive Order 
implementing the Global Magnitsky Human Rights Accountability Act. The 
following month, we released a joint statement with the German Embassy 
in Beijing on the sentencing of human rights defenders Wu Gan and Xie 
Yang, in which we publicly condemned the allegations of their serious 
mistreatment. We should welcome other countries speaking out on this 
issue as well, and, if confirmed, I will continue to look for 
opportunities to work with like-minded countries to address China's 
human rights abuses. I am firmly committed to opposing torture and 
other human rights violations and abuses in China and elsewhere in the 
world.
    As with all policy matters under consideration at the Department of 
State, arriving at consensus positions is a primary goal, and I have 
certainly not made any policies unilaterally. The decision by the U.S. 
Government not to join the February 2017 letter was related to timing 
and the recent arrival of a new administration, rather than any lack of 
commitment or disagreement about substance.

    Question 12. During your time in the State Department's Bureau of 
East Asian and Pacific Affairs (hereinafter ``EAP Bureau''), has Joshua 
Wong ever requested to meet with you?

    Answer. It is my understanding that Joshua Wong has not requested a 
meeting with me in the past. Officers from the EAP Bureau and other 
parts of the State Department, both in Washington, D.C. and in Hong 
Kong, however, have met with Joshua Wong on multiple occasions, just as 
they have with many other Hong Kong citizens of influence across the 
political spectrum. If confirmed, I would stand ready to meet with Hong 
Kong citizens from across the political spectrum, including democracy 
activists like Joshua Wong. I would also instruct Consulate General 
Hong Kong to do the same.

    Question 13. During your time in the EAP Bureau, have you ever met 
with Joshua Wong? If not, why not?

    Answer. I have not personally met with Joshua Wong, but me officers 
from the EAP Bureau and other parts of the State Department, both in 
Washington, D.C. and in Hong Kong, however, have met with Joshua Wong 
on multiple occasions, just as they have with many other Hong Kong 
citizens of influence across the political spectrum. If confirmed, I 
would stand ready to meet with Hong Kong citizens from across the 
political spectrum, including democracy activists, like Joshua Wong. I 
would also instruct Consulate General Hong Kong to do the same.

    Question 14. During your time in the EAP Bureau, have you met with 
any Hong Kong-based pro-democracy advocates? How many and with whom in 
particular?

    Answer. I, and/or members of my teams, have met with Anson Chan, 
Martin Lee, Dennis Kwok, Joshua Wong, Jeffrey Ngo, and others. State 
Department officials at all levels, including at Consulate General Hong 
Kong, regularly meet with Hong Kong Government officials, activists, 
representatives from civil society, and private citizens to discuss a 
wide range of topics bearing on the interests of the United States 
including human rights, fundamental freedoms, and democracy. If 
confirmed, I would stand ready to meet with Hong Kong citizens from 
across the political spectrum, including democracy activists, and would 
instruct Consulate General Hong Kong to do the same.
    The United States firmly supports Hong Kong's high degree of 
autonomy, rule of law, and respect for human rights and fundamental 
freedoms. We recognize the Sino-British Joint Declaration and the Basic 
Law as the bedrock of Hong Kong's autonomy under ``one country, two 
systems.'' We support freedom of expression and believe that societies 
are best served when diverse political views are respected and can be 
freely expressed. If confirmed, I will continue to promote these 
priorities through our engagement with the Government and people of 
Hong Kong, as well as the Chinese Central Government.

    Question 15. If confirmed, do you commit to meeting with Joshua 
Wong, Agnes Chow, and other young pro-democracy activists in Hong Kong?

    Answer. Yes. If confirmed, I would stand ready to meet with Hong 
Kong citizens from across the political spectrum, including democracy 
activists, and I would instruct Consulate General Hong Kong to do the 
same.

    Question 16. If confirmed, do you commit to instructing U.S. Consul 
General to Hong Kong Kurt Tong to meeting with Joshua Wong, Agnes Chow, 
and other young pro-democracy activists in Hong Kong?

    Answer. Yes. If confirmed, I will instruct Consulate General Hong 
Kong to meet with Hong Kong citizens from across the political 
spectrum, including young pro-democracy activists.

    Question 17. If confirmed, do you commit to instructing U.S. Consul 
General to Hong Kong Kurt Tong to send a clear message that the United 
States will not tolerate China's erosion of the ``one country, two 
systems'' model?

    Answer. Yes. If confirmed, I will continue to have the United 
States voice our concerns, including through Consulate General Hong 
Kong, over any actions by the Chinese Central Government that appear 
inconsistent with China's commitment in the Basic Law to allow Hong 
Kong to exercise a high degree of autonomy under the ``one country, two 
systems'' framework. If confirmed, I will also continue to urge China 
to respect these principles as enshrined in the Sino-British Joint 
Declaration and the Basic Law.

    Question 18. Anson Chan recently said that Hong Kong is the 
``canary in the coal mine'' for rule of law, political rights and 
freedom of expression in China, all of which are essential also to 
protecting U.S. economic interests as well as the interest of American 
businesses operating in China. What actions can the U.S. Consulate 
General in Hong Kong take to demonstrate American support for Hong 
Kong's autonomy and for fundamental freedoms-including academic 
freedom, freedom of expression, freedom of assembly-in Hong Kong?

    Answer. The United States has firmly supported Hong Kong's high 
degree of autonomy, rule of law, and respect for human rights and 
fundamental freedoms. The State Department supports freedom of 
expression and believes that societies are best served when diverse 
political views are protected and can be freely expressed.
    The State Department believes that an open society, with the 
highest possible degree of autonomy and democratic participation, and 
governed by the rule of law, is essential for Hong Kong's stability and 
prosperity.
    If confirmed, I will continue to urge the Chinese Central 
Government to honor its commitments to uphold the rule of law in Hong 
Kong, as well as to ensure respect for the Basic Law. Hong Kong's 
highly respected rule of law system, the integrity of Hong Kong's 
legislature, and the independence of Hong Kong's judiciary, have been 
critical to the continued success of the Hong Kong Special 
Administrative Region.
    The State Department and our Consulate General Hong Kong have been 
very active in demonstrating American support for these ideals both in 
private and in public --such as through the June 2017 release of the 
``Review of Key Developments in Hong Kong'' that described several 
concerns related to the autonomy of Hong Kong and called on the Central 
Government to honor its commitments. If confirmed, I would instruct 
Consulate General Hong Kong and State Department officials at all 
levels to continue to engage privately and publicly with Hong Kong and 
Central Government officials and institutions in support of Hong Kong's 
autonomy and fundamental freedoms. I would also support governance 
programming that strengthens the Hong Kong institutions that play 
critically important roles in protecting Hong Kong's high degree of 
autonomy and fundamental freedoms.

    Question 19. The Trump administration has emphasized the concept of 
reciprocity in our dealings with China. What are your views on the 
principle of reciprocity in the context of U.S.-China relations?

    Answer. In order to realign and rebalance our relationship with 
China, there needs to be significant changes in China's behavior 
bilaterally, regionally, and globally in important security, 
diplomatic, and economic areas. In particular, China must enact a more 
fair and reciprocal trade and investment relationship with the United 
States. China should play by the same rules and standards the United 
States and other countries are expected to follow, whether that be 
human rights for people in their territory, trade and investment, or 
international law.
    In our efforts to promote reciprocity, I believe that the United 
States must remain consistent with our own values such as respect for 
the rule of law, respect for U.S. sovereignty, and transparency.

    Question 20. During your time in the State Department's Bureau of 
East Asian and Pacific Affairs (hereinafter ``EAP Bureau''), what 
specific policy proposals have you supported at the Department to 
actualize the idea of bringing greater reciprocity to America's 
relationship with China?

    Answer. In order to realign and rebalance our relationship with 
China, there must be significant changes in China's behavior 
bilaterally, regionally, and globally in important security, 
diplomatic, and economic areas. To ensure reciprocity for the open 
access China and many other countries enjoy in the United States, I 
have strongly supported efforts to gain better access in China for U.S. 
businesses and products, foreign journalists, non-governmental 
organizations, and religious organizations.

    Question 21. During your time in the EAP Bureau, what specific 
proposals with regard to bring greater reciprocity to America's 
relationship with China have you blocked or otherwise not support from 
moving forward?

    Answer. In order to realign and rebalance our relationship with 
China, there must be significant changes in China's behavior 
bilaterally, regionally, and globally in important security, 
diplomatic, and economic areas. To ensure reciprocity for the open 
access China and many other countries enjoy in the United States, I 
have strongly supported efforts to gain better access in China for U.S. 
businesses and products, foreign journalists, non-governmental 
organizations, and religious organizations. As an example, I have 
advocated in the past for journalists visas and duration of stay in 
China, reciprocal treatment for restrictions on movements of diplomatic 
personnel, access for official personnel to the Tibetan Autonomous 
Region, and in many other fields, including requests for legal 
assistance, market access, etc. I am not aware of having blocked any 
such proposals. In our efforts to promote reciprocity, I believe that 
the United States must remain consistent with our own values. I would 
not support any efforts that violate our laws, sovereignty, or the 
Constitution.

    Question 22. The Chinese Government wields its ability to grant or 
deny visas to international scholars, journalists, civil society 
representatives, diplomats and others as a weapon. Academics who try to 
tackle politically sensitive topics find themselves banned from 
entering China for years at a time-a virtual death blow to the careers 
of young scholars while Chinese scholars experience no such similar 
restrictions in attempts to enter the United States. In a similar vein 
Members of Congress who are outspoken critics of the Chinese Government 
find their visas denied or delayed to the point of making a trip 
ineffectual, while at the same time that Chinese Government officials 
and Chinese Communist Party officials are routinely granted visas and 
granted access to all parts of the United the States. Diaspora 
communities, such as Tibetan-Americans, find their requests to travel 
to Tibet repeatedly denied while Chinese Government officials and 
Chinese Communist Party officials who implement repressive policies 
against these same ethnic minority regions travel freely in the United 
States. Chinese-funded think tanks in the United States abound while 
American non-governmental organizations (``NGOs'') and think tanks find 
their activities further restricted under the recently-passed foreign 
NGO management law. Do you agree with this assessment?

    Answer. I am committed to working towards ensuring that U.S. civil 
society, media, legislators, and scholars have full access to China.
    Executive Order 13780, which was signed by the President last 
March, requires the Department of State to undertake a worldwide review 
of nonimmigrant visa reciprocity agreements and arrangements. The 
Department noted discrepancies between the U.S. visa regime and China's 
and signaled to the Chinese that our visa agreements must be 
reciprocal. The Department is preparing now to take the steps necessary 
to make our visa regimes reciprocal including for validity and fees, 
consistent with INA Sections 221(c) and 281.
    Regarding Chinese officials' ability to travel to the United 
States, U.S. consular officers adjudicate visas on a case-by-case basis 
in accordance with U.S. law and regulations, including for those 
applicants who are government officials of a foreign country. The State 
Department regularly denies travel if it is not in the interests of the 
United States.

    Question 23. Do you agree that this assessment reflects a lack of 
reciprocity in the U.S.-China relationship, especially as it relates to 
visas?

    Answer. If confirmed, I am committed to continue working towards 
ensuring that U.S. civil society, media, legislators, and scholars have 
full access to China, and that reciprocity is observed. The Department 
has pursued a policy of reciprocity with regard to visas with China and 
has held annual consular dialogues towards this end.
    President Trump signed Executive Order 13780, requiring the 
Department of State to undertake a worldwide review of nonimmigrant 
visa reciprocity agreements and arrangements. EAP's posts are currently 
reviewing all visa agreements with foreign countries, including Mission 
China. During an initial review of the information provided by China, 
we noted discrepancies between its visa regime and ours. We have 
signaled to the Chinese that our visa agreements must be reciprocal and 
are preparing now to take the steps necessary to make our visa regimes 
reciprocal, including for validity and fees, consistent with INA 
Sections 221(c) and 281.
    Regarding Chinese officials ability to travel to the United States, 
U.S. consular officers adjudicate visas on a case-by-case basis in 
accordance to U.S. law and regulation, including for those applicants 
who are government officials of a foreign country. The State Department 
regularly denies travel if we feel it is not in the interests of the 
United States.

    Question 24. What steps could the State Department take to signal 
to the Chinese Government that the U.S. is prepared to act in its own 
best interest and that reciprocity will underpin future visa 
considerations? Are you prepared to lead such an effort if confirmed?

    Answer. If confirmed, I will work with the Bureau of Consular 
Affairs to ensure that the United States' visa regime is reciprocal, 
consistent with the requirements in Immigration and Nationality Act 
Sections 281 and 221(c), respectively.
    Under Executive Order 13780, the State Department is reviewing 
China's visa policies as part of a worldwide review of nonimmigrant 
visa reciprocity. China is aware that, should visas offered to U.S. 
citizens not be considered reciprocal with what we offer to Chinese 
travelers, the United States will insist that changes be made to make 
them reciprocal. If confirmed, I will fully support such efforts and 
measures.

    Question 25. If confirmed, are you prepared to recommend the denial 
of visas to Chinese officials who oversee policies in places like the 
Tibet Autonomous Region and/or the Xinjiang Uyghur Autonomous Region 
until American diplomats, journalists and NGOs are granted reciprocal 
access to these areas?

    Answer. I am committed to working towards ensuring that U.S. civil 
society, media, legislators, and scholars have full access to China.
    Regarding Chinese officials ability to travel to the United States, 
U.S. consular officers adjudicate visas on a case-by-case basis in 
strict accordance to U.S. law and regulation, including for those 
applicants who are government officials of a foreign country. The State 
Department regularly denies travel if we feel it is not in the 
interests of the United States.

    Question 26. During your confirmation hearing on , I raised 
concerns about the removal of the Taiwanese flag from various webpages 
on the State Department's website-including the Bureau of East Asian 
and Pacific Affairs' webpage on Taiwan at https://www.state.gov/p/eap/
ci/taiwan/ as well as the Bureau of Consular Affairs' webpage on Taiwan 
at https://travel.state.gov/content/travel/csi--repository/csi--
landing/csi--catalog/twn.html-beginning sometime in 2017. When 
specifically were Taiwanese flags removed from these webpages of the 
State Department's website?

    Answer. The two websites cited were updated to remove Taiwan's 
flag, in accordance with long-standing policy on the unofficial nature 
of U.S.-Taiwan relations, on August 2017 and January 2018 respectively.

    Question 27. Did you order, offer guidance on, or personally take 
any actions to implement, the removal of Taiwanese flags from these 
webpages on the State Department's website?

    Answer. I believe Taiwan is a vital partner, a democratic success 
story, and a force for good in the world. Taiwan shares our values, has 
earned our respect, and merits our strong support.
    As the acting senior official in the Bureau of East Asian and 
Pacific Affairs, all decisions made by the bureau are my 
responsibility. The two websites cited were updated to remove Taiwan's 
flag, in accordance with long-standing policy on the unofficial nature 
of U.S.-Taiwan relations.
    The United States' one China policy is based on the three joint 
communiques and the Taiwan Relations Act (TRA). If confirmed, I commit 
to continuing to uphold that policy.

    Question 28. What specific role did you, in your capacity as Acting 
Assistant Secretary of State for East Asian and Pacific Affairs, play 
in the State Department's removal of the Taiwanese flag from the Bureau 
of East Asian and Pacific Affairs' webpage on Taiwan at https://
www.state.gov/p/eap/ci/taiwan/?

    Answer. As the acting senior official in the Bureau of East Asian 
and Pacific Affairs, all decisions made by this bureau are my 
responsibility. The website cited was updated to remove Taiwan's flag, 
in accordance with long-standing policy on the unofficial nature of 
U.S.-Taiwan relations.
    During an annual update of this website in August 2017, the Bureau 
of East Asian and Pacific Affairs removed the Taiwan flag, as including 
it was inconsistent with guidelines on relations with Taiwan 
prohibiting the display of symbols of sovereignty of the ``Republic of 
China'' (ROC).
    The ``U.S. Bilateral Relations Fact Sheet'' on this website 
contains extensive information about the United States' robust 
relationship with Taiwan and Taiwan's positive role in the 
international community.
    The United States' one China policy is based on the three joint ues 
and the Taiwan Relations Act (TRA). If confirmed, I commit to 
continuing to uphold that policy.
    Taiwan is a vital partner, a democratic success story, and a force 
for good in the world. Taiwan shares our values, has earned our 
respect, and continues to merit our strong support.

    Question 29. In your testimony before the committee, you said ``our 
policy is to not display the flag of the R.O.C. on U.S. official 
government websites.'' The March 4, 2011, memorandum from the State 
Department on ``Guidelines on Relations with Taiwan'' (hereinafter the 
``March 2011 Guidelines Memo'') contains no provisions regarding 
Taiwan's flag, however. When was this new policy (in your words) ``to 
not display the flag of the R.O.C. on U.S. official government 
websites'' established?

    Answer. The March 2011 Guidelines memo was revised in October 2015 
to better reflect long-standing U.S. policy regarding the display of 
the Taiwan flag.The United States' one China policy is based on the 
three joint communiques and the Taiwan Relations Act (TRA). If 
confirmed, I commit to continuing to uphold that policy.
    Taiwan is a vital partner, a democratic success story, and a force 
for good in the world. Taiwan shares our values, has earned our 
respect, and continues to merit our strong support.

    Question 30. Did you author, approve, support, or otherwise play a 
role in formulating, the new policy to effectuate the removal of 
Taiwan's flag from the State Department's website and other U.S. 
Government websites?

    Answer. Not displaying the Taiwan flag, including on U.S. 
Government websites, is consistent with the United States' long-
standing policy given the unofficial nature of U.S.-Taiwan relations.

    Question 31. Was the removal of Taiwan's flag from the State 
Department's website pursuant to a new State Department memo circulated 
in 2015 (hereinafter ``the 2015 Guidelines memo) that supersedes the 
March 2011 Guidelines Memo?

    Answer. Yes. The removal of the Taiwan flag from U.S. Government 
websites is consistent with the United States' long-standing policy on 
the unofficial nature of U.S.-Taiwan relations.

    Question 32. Did you author, co-author, approve, or otherwise play 
a role in formulating, the 2015 Guidelines Memo that supersedes the 
March 2011 Guidelines Memo on U.S. relations with Taiwan?

    Answer. As the then Deputy Assistant Secretary responsible for 
China and Taiwan, I was part of the U.S. Government interagency process 
that formulated the 2015 guidelines memo that better reflects 
longstanding U.S. policy.
    The United States' one China policy is based on the three joint 
communiques and the Taiwan Relations Act (TRA). If confirmed, I commit 
to continuing to uphold that policy.

    Question 33. Will you provide us with a copy of the 2015 Guidelines 
Memo and any other memo that supersedes the March 2011 Guidelines Memo 
on U.S. relations with Taiwan?

    Answer. Per the Department's standard practice, I would be happy to 
have my team share the memo referenced above with your staff in camera 
and answer any questions they may have.

    Question 34. Last year, I, along with Senators Menendez, Gardner 
and others, re-introduced the Taiwan Travel Act to encourage visits 
between American and Taiwanese officials at all levels of government, 
including officials from the State Department and the Defense 
Department. Do you believe the current restrictions on meetings with 
high-level Taiwanese officials are obstacles to addressing many of the 
challenges that we face in the region and would you support reviewing 
and updating the State Department's guidance to allow more official 
visits between the U.S. and Taiwan?

    Answer. Consistent with the Taiwan Relations Act (TRA), U.S. 
officials regularly visit Taiwan to advance our unofficial relationship 
through the American Institute in Taiwan (AIT) and the Taipei Economic 
and Cultural Representative Office (TECRO), and vice versa. If 
confirmed, I will seek and consider opportunities for visits to 
Washington and Taipei by senior-level officials and authorities that 
advance our unofficial relationship and enable substantive exchanges on 
issues of mutual concern.
    There has been high-level engagement, facilitated, as deemed 
appropriate, by AIT and TECRO. For example, in September 2017, EPA 
Administrator Scott Pruitt met with Ying-yuan Lee of the Taiwan 
authorities to exchange views on our collaboration under the 
International Environmental Partnership (IEP). In July 2017, Veterans 
Affairs Secretary Shulkin received Taiwan's Veterans Affairs Council 
minister. In April 2014, U.S. Environmental Protection Agency (EPA) 
Administrator Gina McCarthy traveled to Taipei to highlight 20 years of 
environmental cooperation between the United States and the Taiwan 
authorities. There have also been numerous exchanges between sub-
cabinet level U.S. officials and the Taiwan authorities.

    Question 35. During your confirmation hearing, I asked whether you 
would commit to encouraging high-level visits between senior U.S. 
Government officials to meet with their Taiwanese counterparts in 
Taipei. Your answer was non-committal, however, so I would request 
greater clarity on your position with an answer that begins with 
``yes'' or ``no'' to my question.

    Answer. Yes. In accordance with the Taiwan Relations Act, U.S. 
officials regularly visit Taiwan to advance our unofficial relationship 
through the American Institute in Taiwan (AIT) and the Taipei Economic 
and Cultural Representative Office (TECRO), and vice versa. If 
confirmed, I will seek and consider opportunities for visits to 
Washington and Taipei by senior-level authorities that advance our 
unofficial relationship and enable substantive exchanges on issues of 
mutual concern.

    Question 36. If confirmed, will you push for high-level Taiwanese 
officials to enter the United States under conditions that are 
appropriately respectful for the dignity of such high-level officials?

    Answer. Yes. If confirmed, I will seek and consider opportunities 
for visits to Washington and Taipei by senior-level authorities that 
advance our unofficial relationship and enable substantive exchanges on 
issues of mutual concern, consistent with the Taiwan Relations Act and 
our one China policy. Such visitors from Taiwan are treated in an 
appropriately respectful manner.
    The United States facilitates, from time to time, representatives 
of the Taiwan authorities to transit the United States. Such transits 
are undertaken out of consideration for the safety, comfort, 
convenience, and dignity of the passenger and are in keeping with our 
one China policy.

    Question 37. If there was an opportunity for the United States to 
deepen our relationship with senior members of Taiwan's Government, 
would you support such an opportunity?

    Answer. Yes. If confirmed, I will seek and consider opportunities 
to deepen our relationships with senior-level Taiwan counterparts that 
enable substantive exchanges on issues of mutual concern, consistent 
with the Taiwan Relations Act and our one China policy.
    Strengthening our long-standing friendship with the people on 
Taiwan has been a key element of U.S. policy toward Asia.

    Question 38. If President Tsai or Taiwan's Foreign Minister were 
visiting Hawaii, would you support them meeting with the Commander of 
U.S. Pacific Command to exchange views on important security matters in 
East Asia?

    Answer. Consistent with the Taiwan Relations Act (TRA), U.S. 
officials visit Taiwan to take concrete steps to advance our unofficial 
relationship through the American Institute in Taiwan (AIT) and Taipei 
Economic and Cultural Representative Organization (TECRO), and vice 
versa.
    If confirmed, I will seek and consider opportunities for visits by 
senior-level authorities that advance our unofficial relationship and 
enable substantive exchanges on issues of mutual concern, consistent 
with the TRA and our one China policy.

    Question 39. Have you ever opposed, objected to, or otherwise not 
supported a proposal for Taiwan's president, foreign minister, or other 
senior official to meet with the Commander of U.S. Pacific Command in 
Hawaii?

    Answer. Consistent with the Taiwan Relations Act (TRA), U.S. 
officials visit Taiwan to take concrete steps to advance our unofficial 
relationship through the American Institute in Taiwan (AIT) and Taipei 
Economic and Cultural Representative Organization (TECRO), and vice 
versa.
    I have and, if confirmed, will continue to support interaction 
between U.S. and Taiwan senior-level authorities that advances our 
unofficial relationship and enable substantive exchanges on issues of 
mutual concern, consistent with the TRA and our one China policy.

    Question 40. Do you believe the ``Six Assurances'' provide the 
cornerstone for the basis for America's relationship with Taiwan?

    Answer. The United States has been firmly committed to the U.S. one 
China policy, the three joint communiques, and the Taiwan Relations 
Act. I believe the ``Six Assurances'' are also an integral part of the 
U.S. approach to Taiwan.

    Question 41. If confirmed, how do you plan to strengthen our 
security and economic partnership with Taiwan?

    Answer. Taiwan is a vital partner, a democratic success story, and 
a force for good in the world. Taiwan shares our values, has earned our 
respect, and continues to merit our strong support. The United States 
should remain firmly committed to its one China policy, based on the 
three U.S.-PRC joint communiques and the Taiwan Relations Act (TRA).
    Secretary Tillerson, in his January 2017 Senate confirmation 
process, reaffirmed the U.S. commitment to our one China policy and the 
December 2017 National Security Strategy further reiterated that 
commitment.
    If confirmed, and under the umbrella of our unofficial 
relationship, I will encourage the conduct, through the American 
Institute in Taiwan (AIT) and the Taipei Economic and Cultural 
Representative Office in the United States (TECRO), of a broad range of 
interactions, including arms sales, visits, trade discussions, and 
educational and cultural exchanges.
    The security of Taiwan is central to the security of the broader 
Indo-Pacific region and stable cross-Strait relations as essential to 
maintaining regional stability.
    If confirmed, I will remain fully committed to carrying out the 
TRA.
    We should also strengthen the two-way trade and investment 
relationship, including through dialogue in our Trade and Investment 
Framework Agreement (TIFA) process, so we can work together to bring 
resolution to long-standing areas of concern. The United States and 
Taiwan authorities are working closely through TIFA discussions, 
convened under the auspices of AIT and TECRO. The TIFA is the key forum 
for trade dialogue between the United States and Taiwan, as it provides 
an opportunity for both sides to find ways to further expand our trade 
and investment relationship.

    Question 42. What does the One-China Policy mean to you and do you 
believe that the United States has the right to define our own One-
China Policy?

    Answer. The United States' one China policy is based on the three 
joint communiques and the Taiwan Relations Act (TRA).
    Our one China policy has helped ensure peace and stability across 
the Taiwan Strait and in the region for decades. This policy has 
enabled us to be a leader in maintaining robust unofficial relations 
with Taiwan while pursuing a constructive relationship with China.
    The TRA provides the framework for the United States and Taiwan to 
cooperate in a wide range of mutually beneficial areas including 
energy, the environment, and scientific research.
    Under the umbrella of our unofficial relationship, the United 
States and Taiwan conduct, through the American Institute in Taiwan 
(AIT) and the Taipei Economic and Cultural Representative Office in the 
United States (TECRO), a broad range of interactions, including arms 
sales, visits, trade discussions, and educational and cultural 
exchanges.
    The long-standing friendship with the people on Taiwan remains a 
key element of U.S. Asia policy. The enduring relationship under the 
TRA represents a unique asset for the United States and is an important 
multiplier of our influence in the region. This friendship is grounded 
in history, shared values, and the common commitment to democracy, free 
markets, rule of law, and human rights.
    The United States has a deep and abiding interest in cross-Strait 
peace and stability. It is important that both sides of the Taiwan 
Strait understand the importance of these benefits and work to 
establish a basis for continued peace and stability. The benefits that 
stable cross-Strait ties have brought to both sides of the Taiwan 
Strait, the United States, and the region have been enormous.
    If confirmed, I would continue to support our robust relations with 
Taiwan and encourage authorities in Beijing and Taipei to engage in 
constructive dialogue that seeks a peaceful resolution of differences 
acceptable to the people of both sides of the Taiwan Strait.

    Question 43. Would port visits of U.S. Naval ships to Taiwan be 
consistent with the one China Policy?

    Answer. The United States should remain fully committed to carrying 
out the Taiwan Relations Act (TRA). Consistent with the TRA and our one 
China policy, unofficial relations between the United States and Taiwan 
should continue to feature a robust security cooperation program that 
includes maintenance, training, and exchanges. Over the last few years, 
the United States has nearly doubled the number of annual security 
cooperation events, further enabling Taiwan to strengthen its self-
defense capability. If confirmed, I will remain fully committed to 
carrying out the TRA.

    Question 44. Do you support returning to an annualized arms sale 
process with Taiwan, such as what occurred before 2001?

    Answer. If confirmed, I will continue to support arms sales to 
Taiwan. In June 2017, the administration notified Congress of a $1.42 
billion defense arms sale package. Consistent with the Taiwan Relations 
Act (TRA), the United States has regularly made available to Taiwan 
defense articles and services necessary to enable Taiwan to maintain a 
sufficient self-defense capability and maintain the capacity of the 
United States to resist any resort to force or other forms of coercion 
that would jeopardize the security, or the social or economic system, 
of the people on Taiwan. This supports improved relations across the 
Taiwan Strait by providing Taipei with the confidence to pursue 
constructive interactions with Beijing.
    The long-standing policy on defense sales to Taiwan has contributed 
to the security of Taiwan and also supported the maintenance of peace 
and stability across the Taiwan Strait. Arms sales are a visible 
demonstration of U.S. support for Taiwan. U.S. security assistance to 
Taiwan is greater than just the provision of arms. The United States 
also supports Taiwan with training, doctrine development, and expertise 
on asymmetric approaches to warfare, helping Taiwan to strengthen its 
self-defense capability.

    Question 45. Why do you believe U.S. arms sales to Taiwan have been 
so inconsistent?

    Answer. U.S. long-standing policy on defense sales to Taiwan has 
been consistent across seven different U.S. administrations. U.S. sales 
of defense articles and services are guided by the Taiwan Relations Act 
and based on an assessment of Taiwan's defense needs, and in accordance 
with procedures established by law. This consistent policy has 
contributed to the security of Taiwan and also supported the 
maintenance of peace and stability across the Taiwan Strait.

    Question 46. During your time in the Bureau of East Asian and 
Pacific Affairs, have you personally played in role in delaying any 
pending U.S. arms sales to Taiwan?

    Answer. No. During my time in the Bureau of East Asian and Pacific 
Affairs, I have consistently worked to expeditiously process all 
requests, for arms sales to Taiwan, including the June 2017 sale, in 
accordance by the Taiwan Relations Act. If confirmed, I will continue 
to do so.

    Question 47. It has long been the policy of the U.S. Government, 
provided by the Tibetan Policy Act, to promote dialogue between the 
envoys of the Dalai Lama and the Chinese Government toward a solution 
on the Tibet issue that guarantees the respect of the ``distinct 
identity'' of the Tibetan people. The dialogue is now at a standstill 
and the lack of substantive progress toward a genuine resolution 
continues to be a thorny issue in U.S.-China relations. The United 
States has played a key role in encouraging past dialogues. Would you, 
if confirmed, personally commit to pressing Chinese leadership for a 
resolution of the Tibetan issue through a speedy resumption of dialogue 
with the Tibetan side, without preconditions?

    Answer. I am deeply concerned by the lack of meaningful autonomy 
for the people of Tibet. If confirmed, I will urge Chinese authorities 
to engage in a meaningful and direct dialogue with the Dalai Lama or 
his representatives, without preconditions, to lower tensions and 
resolve differences. I also will continue to urge China to cease 
restrictions on the religious, linguistic, and cultural traditions and 
practices of the Tibetan people.

    Question 48. Will you, if confirmed, commit to pressing the Chinese 
authorities to allow for the opening of a U.S. consulate in Lhasa?

    Answer. If confirmed, I will continue to press the Chinese 
Government to allow the opening of a U.S. Consulate in Lhasa.

    Question 49. Will you, if confirmed, commit to explaining to the 
Chinese that the U.S. will recognize and interact with the person 
chosen independently, to succeed the current Dalai Lama through Tibetan 
Buddhism's spiritual tradition, and consistent with the processes 
described by the current Dalai Lama?

    Answer. If confirmed, I will reaffirm to Chinese authorities that 
the United States will continue to respect the religious practices and 
traditions of Tibetans and to meet with those persons we deem it in our 
interest to meet. This includes those reincarnate lamas who lead the 
faith, such as the Dalai Lama.

    Question 50. Will you, if confirmed, also make it clear that the 
United States will not accept a Chinese Government-controlled process 
to select the Dalai Lama's successor?

    Answer. If confirmed, I will speak out against Chinese Government 
interference in Tibetan religious practices, particularly the 
selection, education, and veneration of the reincarnate lamas who lead 
the faith, such as the Dalai Lama. I will continue to raise directly 
with the Chinese Government our concerns about restrictions placed on 
the religious freedom of Tibetans.

    Question 51. What points of leverage do you think the United States 
has to obtain freedom outside China for Liu Xia, the widow of 2010 
Nobel Peace Prize winner Liu Xiaobo? If confirmed, what points would 
you be willing to use?

    Answer. I remain deeply concerned about Liu Xia's well-being have 
frequently pressed Chinese officials on her right to travel freely, and 
have worked with like-minded partners to press her case. If confirmed, 
I will continue to review and make use of all tools at my disposal to 
press for Liu Xia's well-being and freedom of communication and 
movement including travel abroad.

    Question 52. If confirmed, would you commit to trying to go see Liu 
Xia?

    Answer. I remain deeply concerned about Liu Xia's well-being. If 
confirmed, I am committed to exploring all avenues, including whatever 
requests for access and visits will make Liu Xia's situation better.

    Question 53. Senior administration officials, including Secretary 
of State Rex Tillerson, have said that human rights are ``embedded'' in 
U.S. foreign policy. Can you please explain in concrete terms what you 
believe that means with respect to human rights in China, and also 
provide two or three examples of your having acted on it?

    Answer. Promoting respect for human rights and fundamental 
freedoms, including freedom of religion or belief, remains a key 
component of American foreign policy. Our values regarding human 
rights, fundamental freedoms, and human dignity should guide our 
foreign policy and how we work with other countries. U.S. advancement 
of democracy, human rights, and the rule of law have contributed to the 
success story of the Indo-Pacific region over the last half century 
and, if confirmed, I will work to advance these fundamental U.S. values 
in the region.
    During my time as Acting Assistant Secretary, I regularly condemned 
human rights violations and abuses in China, and raised and advocated 
for individual cases of concerns with Chinese counterparts. At 
consecutive sessions of the United Nations Human Rights Council since 
February 2017, I ensured the United States raised our concerns publicly 
about reports of China's arbitrary detention and torture of lawyers and 
activists, constraints on civil society and religious practices, 
discrimination against/ human rights abuses with respect to the denial 
of rights to Tibetans and Uighurs, the crackdown on peaceful political 
expression, and reprisals against human rights activists. In March 
2017, I reviewed and approved the Department of State's annual Human 
Rights Report detailing the continued widespread abuses of human rights 
and fundamental freedoms in China. Later that month, Secretary 
Tillerson made his first visit to China, during which he and I made 
clear that the United States would continue to advocate for human 
rights and fundamental freedoms, including freedom of religion and 
belief, universal values such as human rights and religious freedom. 
The following month, on the sidelines of the U.S.-China summit at Mar-
a-Lago I raised specific human rights cases of concerns with Chinese 
counterparts. In April 2017, we secured the release of an American 
businesswoman from Houston who had been in prolonged pretrial detention 
in China for over two years, one of several American citizens I have 
personally helped to overcome exit bans.
    Over the past year, I have also supported Department of State 
officials' attendance at the Chinese trials and sentencings of numerous 
human rights lawyers and activists who have reportedly faced serious 
mistreatment and torture while in detention, and private meetings 
privately with the wives and family members of those who have been 
detained. Publicly, I have drafted and approved the Department of State 
statements marking the passing of Chinese Nobel Peace Prize Laureate 
Liu Xiaobo, the two-year anniversary of the launch of the Chinese 
Government's nationwide campaign of intimidation against defense 
lawyers and rights defenders, and the detention of Swedish citizen and 
Hong Kong bookseller Gui Minhai. I also approved the publication by our 
Embassy of a statement on International Human Rights Day, and a joint 
statement with the Germany Embassy on the sentencing of Chinese human 
rights defenders Wu Gan and Xie Yang.
    Among our most intensive efforts this year to advance our human 
rights agenda in China was our effort to secure Liu Xiaobo's freedom. 
In June 2017, the Department of State called on China to allow Liu 
Xiaobo access to international medical specialists and to be allowed to 
seek medical treatment abroad. In July, under my leadership, the Bureau 
of East Asian and Pacific Affairs arranged for a leading American 
cancer specialist to travel to Shenyang to visit and treat Liu, and 
reiterate calls for his ability to seek medical treatment abroad. 
Following Liu's passing, the Secretary released a statement calling for 
the release from house arrest of Liu's widow, Liu Xia, and her ability 
to depart China. If confirmed, I will continue to lead persistent 
public and private efforts to press for Liu Xia's ability to 
communicate freely and travel, including abroad.
    In December, the United States took action to promote 
accountability for serious human rights abuses in China by designating 
a former Chinese prison official under the December 2017 Executive 
Order implementing the Global Magnitsky Human Rights Accountability 
Act. Moreover, we have used our high-level meetings with the Chinese to 
raise U.S. concerns around issues such as China's foreign NGO 
management law, exit bans placed on U.S. citizens, and specific 
detentions of Chinese activists. I, and my colleagues in the Bureau of 
East Asian and Pacific Affairs, have met regularly with Chinese human 
rights lawyers and activists such as Chen Guangcheng, leaders of non-
government and non-profit organizations promoting greater respect for 
human rights in China such as Dui Hua Foundation founder John Kamm, and 
members of ethnic and religious minority groups such as World Uighur 
Congress president Dolkun Isa and Tibetan filmmaker Dhondup Wangchen. 
If confirmed, I will continue to raise our concerns about China's human 
rights issues, both in our private conversations and publicly, and 
encourage greater respect for human rights, fundamental freedoms, and 
the rule of law in China.

    Question 54. During your time at the State Department's Bureau of 
East Asian and Pacific Affairs, how many Chinese human rights advocates 
or Chinese dissidents have you met with? Please provide us with notable 
examples in recent years.

    Answer. I am troubled by the well-documented deterioration of the 
human rights situation in China. During my time in the EAP Bureau, I 
have met with countless human rights advocates and Chinese dissidents, 
including the Dalai Lama, Rebiya Kadeer, Liu Xiaobo (prior to his 
detention), and many others. If confirmed, I will continue to meet with 
such individuals and raise specific human rights cases of concern with 
Chinese authorities, as appropriate.

    Question 55. Will you commit to trying to visit all of the people 
wrongfully detained in China who are relatives of U.S. citizens?

    Answer. The safety and security of U.S. citizens is one of the 
Department's top priorities. Consular officers help U.S. citizens at 
all hours of the day, in all types of situations, be it criminal 
matter, a health crisis, or simply needing passports or birth 
certificates.
    I have regularly raised cases of detained American Citizens with my 
Chinese counterparts, and U.S. consular officials regularly visit U.S. 
detainees as permitted under our bilateral agreements with China.
    For others persons wrongfully detained in China, the State 
Department remains committed to helping shine a light on their cases. 
If confirmed, I will continue to raise and advocate for individual 
human rights cases of concern with Chinese authorities and encourage 
greater respect for human rights, fundamental freedoms, and the rule of 
law in China. If the families desire it, I am always happy to meet with 
them.

    Question 56. Are you aware of cases where the Chinese Government 
has detained a U.S. citizen or otherwise prevented a U.S. citizen from 
exiting as leverage to coerce a Chinese citizen into returning to 
China? If yes, what policies will you advocate, if confirmed, to 
counter and reverse this practice by the Chinese Government?

    Answer. Yes, I and other senior U.S. Government officials have 
regularly raised exit bans with the Chinese, particularly when these 
seem to involve parties not under investigation. The Department 
recently had success on lifting an exit ban on a young woman after 
significant, high-level intervention.
    The State Department should continue to push China to lift exit 
bans for all U.S. citizens, and to have a more transparent process on 
how they are applied and can be lifted. If confirmed, I as Assistant 
Secretary will continue to raise these cases at the highest level 
necessary to ensure the release of U.S. citizens detained or the 
ability of U.S. citizens to depart China.

    Question 57. Chinese President Xi Jinping has cracked down harshly 
on dissent, targeting ethnic and religious minorities, human rights 
lawyers, journalists, civil society activists, and even average 
internet users for arrest and imprisonment. The Chinese Government has 
also ramped up its hostility toward foreigners and foreign entities 
through restrictive new legislation and official propaganda. How will 
you persuade Chinese officials to end practices and policies that harm 
both the people of China and U.S. interests, including those of 
American businesses?

    Answer. If confirmed, I will continue to review and make use of all 
tools at my disposal to promote greater respect for human rights, 
fundamental freedoms, and the rule of law in China, including in 
coordination with likeminded countries and partners. I am committed to 
continuing to raise our concerns over respect for human rights, 
including freedom of religion and belief, in all my conversations with 
Chinese officials, and to advocate for specific cases of concern.
    The State Department regularly presses China in support of U.S. 
business interests. As part of the overall effort to ensure a fair and 
reciprocal economic relationship between the United States and China, 
the State Department protests instances in which American companies 
operating in China are subject to opaque rules, arbitrary imposition of 
regulations, and political interference in their business operations. 
If confirmed, I will continue to advocate for U.S. companies operating 
in China and strongly urge Chinese authorities to work constructively 
with company representatives to resolve business disputes in the spirit 
of openness, transparency, and without resort to coercion or threat.

    Question 58. How can State improve its coordination with American 
business and academic institutions to advance practices and policies 
that enhance freedom in China?

    Answer. The United States has repeatedly raised concerns about 
freedom of expression, including as it relates to academic and media 
freedom, including at the U.S.-China Social & Cultural Dialogue and 
other engagements with Chinese leadership. The State Department should 
continue to call on Chinese authorities to unblock websites of U.S. 
business and media, eliminate restrictions that impede the ability of 
journalists to practice their profession, and allow all individuals to 
express their views without fear of retribution. The State Department 
should continue supporting the efforts of American chambers of commerce 
and business associations in their efforts to highlight their business 
practices, including transparency, respect for the individual and 
diversity, and corporate social responsibility.
    The State Department's Bureaus of Educational and Cultural Affairs 
and East Asian and Pacific affairs are engaged in detailed discussions 
with higher education associations to discuss best practices for 
academic engagement with China. The goal is to help universities 
encourage Chinese students to experience the full range of American 
values during their time in the United States, including freedom of 
expression. U.S. Mission China also supports exchange programs that 
engage important segments of Chinese society, and fosters relationships 
with influential emerging leaders and other stakeholders in both 
countries.

    Question 59. Do you agree with President Trump and his National 
Security Strategy document that the People's Republic of China is a 
strategic competitor of the United States?

    Answer. Yes, I believe that the National Security Strategy reflects 
our increasing concerns about Chinese actions that are undermining the 
international rules-based order.
    The United States should not shy away from speaking forthrightly 
about, and contesting, Chinese policies and actions that undermine the 
international order that has fostered peace and prosperity for the 
Indo-Pacific region for decades.
    We should also remain committed to seeking a constructive and 
results-oriented relationship with China. We should continue to 
cooperate with China where we can to broaden and address issues of 
common interests, including the threat posed by North Korea and the 
flow of illegal opioids from China, while addressing our differences 
constructively.

    Question 60. Was President Obama and his administration correct or 
incorrect not to describe China as a strategic competitor? Why so?

    Answer. China is now the world's second largest economy with 
increasingly far flung business interests, one of the most capable and 
growing militaries in the Asia-Pacific, and an active player on the 
global stage. Our policies should continue to evolve and adapt to 
present-day China and to other changes to the international 
environment.

    Question 61. If confirmed, will you make ``the long-term strategic 
competition with China'' also a principal priority for the State 
Department's Bureau of East Asian and Pacific Affairs? What changes or 
sustained efforts do you plan to make to the Bureau of East Asian and 
Pacific Affairs to better prepare it for dealing with China as a 
strategic competitor to the United States?

    Answer. The rise of China poses a major challenge to U.S. interests 
in East Asia and the Pacific. If confirmed, I will ensure the Bureau of 
East Asia and Pacific Affairs' approach to dealing with the challenges 
is consistent with the National Security Strategy. We should not shy 
away from speaking forthrightly about and contesting Chinese policies 
and actions that undermine the international order that has fostered 
peace and prosperity for the Indo-Pacific region for decades. It should 
be in every country's interest to uphold this order, and if confirmed, 
I will make working with our Indo-Pacific allies and partners to defend 
and strengthen the rules-based system a priority. I will also work with 
colleagues across the Department of State and throughout the 
interagency to ensure that we apply the same, consistent approach 
outside the region to pushing back against Chinese behavior when it 
threatens to undercut the global rules-based order.

    Question 62. If confirmed, what role would you make defending 
fundamental human rights and universal values in China play in efforts 
by the Bureau of East Asian and Pacific Affairs to make ``the long-term 
strategic competition with China a priority''?

    Answer. The State Department should not shy away from speaking 
forthrightly about and contesting Chinese policies and actions that 
undermine the international order that has fostered peace and 
prosperity in the Indo-Pacific region for decades. We should continue 
to work with China on important issues, from North Korea to countering 
the flow of illegal opioids. At the same time, we should draw a clear 
distinction where we disagree. We must remain committed to defending 
our values and championing human rights and fundamental freedoms around 
the world.
    In pursuit of our vision of a free and open Indo-Pacific region, 
the United States should continue to work cooperatively with allies and 
like-minded partners to uphold the rules-based order, and to advance 
fundamental U.S. values around democracy, human rights, and the rule of 
law in the region. Our strategy should be to continue to promote 
democratic values and work closely with other democracies to strengthen 
respect for human rights and fundamental freedoms, including freedom of 
expression and freedom of religion and belief. If confirmed, I am 
committed to continuing to make use of all tools at our disposal to 
press for progress on human rights in China as a key component of U.S. 
foreign policy in the region.

    Question 63. During a State Department press briefing prior to the 
inaugural U.S.-China Diplomatic and Security Dialogue, you were asked a 
question about the administration's approach to the South China Sea. 
During your response, you noted, ``We think it's important that 
tensions are lowered over these issues.'' Do you view lowering tensions 
with China as policy goal in and of itself?

    Answer. No. U.S. policy advocates that maritime disputes in the 
South China Sea should be resolved peacefully. Maintaining peace, 
security, and the freedoms of navigation and overflight and other 
lawful uses of the sea have been and should continue to be a priority 
for the United States. During the past year, the State Department has 
approved numerous operations, including freedom of navigation 
operations, to defend these principles. I continue to have serious 
concerns over ongoing developments in the South China Sea, and we 
should continue to condemn coercion and call on all parties, including 
China, to set the conditions for constructive diplomatic engagement.

    Question 64. Do you place a higher priority on lowering tensions 
with regard to the Chinese Government's provocative actions to change 
the status quo in the South China Sea or on preventing the South China 
Sea's domination by the Chinese Government?

    Answer. The United States should prioritize maintaining peace, 
security, stability, and the freedoms of navigation and overflight and 
other lawful uses of the sea. I have serious concerns over ongoing 
developments in the South China Sea.
    I fully support the administration's policy to oppose intimidation, 
coercion, and the threat or use of force by any claimant to assert 
South China Sea claims, and note that China's activities, in 
particular, continue to overshadow those of other claimants in scope 
and provocativeness.
    If confirmed, I will continue to support operations to defend 
freedom of navigation and overflight, and to engage bilaterally with 
countries across the region and through multilateral fora to reinforce 
support for the rules-based international system that has been 
indispensable for the peace, security, and prosperity of the Indo-
Pacific region, including in the South China Sea.

    Question 65. Do you believe that the Obama administration gave too 
much priority to concluding the Paris Accord and, as a result, was too 
soft on China's expansionist behavior in 2015?

    Answer. Concluding the Paris Accord was a stated priority of the 
Obama administration. If confirmed, I believe the United States should 
not shy away from speaking forthrightly about and contesting Chinese 
policies and actions that undermine the rules-based system that has 
fostered peace and prosperity for the Indo-Pacific region for decades. 
It is important for the United States to have a strong posture in the 
Indo-Pacific, which will enable the United States to better safeguard 
our interests in the region, including ensuring that our allies and 
partners are secure from military threats or coercion. The United 
States should continue to encourage cooperation to maintain free and 
open seaways, promote good governance and transparent infrastructure 
financing practices, and advance unimpeded commerce under free market 
principles.
    If confirmed, I will work with our allies and partners to advance 
the region's security and prosperity, develop its institutions, and 
prevent the erosion of the rules-based international order.



                               __________


     Responses to Additional Questions for the Record Submitted to
            Susan A. Thornton by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been a 
longstanding priority for me throughout my career. As Principal Deputy 
Assistant Secretary responsible for Chinese and Mongolian Affairs and 
then acting Assistant Secretary of the East Asian and Pacific Affairs 
Bureau, I have worked to ensure that human rights issues are 
consistently raised in our engagements with countries across the region 
at all levels. In our bilateral and multilateral engagements, I have 
worked to ensure that the advancement of human rights and the promotion 
of democratic values are enshrined in high-level statements.
    During my time as Acting Assistant Secretary, I regularly condemned 
human rights violations and abuses in China, and raised and advocated 
for individual cases of concerns with Chinese counterparts. For 
example, in April 2017 we secured the release of an American 
businesswoman from Houston who had been in prolonged pretrial detention 
in China for over 2 years. In December we took action to promote 
accountability for serious human rights abuses in China by designating 
a former Chinese prison official under the December 2017 Executive 
Order implementing the Global Magnitsky Human Rights Accountability 
Act. Moreover, we have used our high-level meetings with the Chinese to 
raise U.S. concerns around issues such as China's foreign NGO 
management law, exit bans placed on U.S. citizens, and specific 
detentions of Chinese activists.
    I also accompanied Secretary Tillerson to Burma last November to 
press the Government of Burma to address the ongoing crisis in northern 
Rakhine State and have supported efforts to hold those responsible for 
ethnic cleansing to account. I supported the application of Global 
Magnitsky sanctions to hold accountable individuals involved in 
significant corruption or gross violation of human rights in Burma as 
well.
    If confirmed, I will continue to ensure that the promotion of human 
rights and democratic values remain a high priority in our diplomatic 
engagement in the Asia-Pacific region.

    Question 2. What are the most pressing human rights concerns in the 
East Asian and Pacific region today? What are the most important steps 
you expect to take--if confirmed--to advance human rights and democracy 
in East Asia and the Pacific? What do you hope to accomplish through 
these actions?

    Answer. I am concerned by an increase in government efforts across 
the Asia-Pacific region to shrink the space for civil society, 
including through the passage of overly restrictive NGO registration 
and management laws in places like China and Cambodia, and restrictions 
on fundamental freedoms, including expression and assembly. Burma's 
democratic transition has encountered serious obstacles, and I am very 
concerned by the ethnic cleansing in northern Rakhine State and the 
continued arrest and detention of political prisoners.
    In China, I remain troubled by reports that lawyers and activists, 
including foreign nationals, are being arbitrarily detained, tortured, 
and forced to confess to political charges on state media, and that in 
many cases, authorities have retaliated against their families. 
Additionally, I am concerned about conditions akin to martial law that 
have been imposed in Xinjiang and some Tibetan areas. China's 
restrictions on religious expression and indigenous language education 
in Tibet and Xinjiang limit U.S.-China cooperation on counterterrorism 
issues. These repressive practices not only violate human rights but 
also exacerbate social unrest and ethnic tension, and can actually 
foment violence. If confirmed, I will continue to focus attention on 
China's human right abuses, both in our private conversations and 
publicly, and encourage greater respect for human rights, fundamental 
freedoms, and the rule of law in China.
    The human rights situation in the DPRK remains one of the worst in 
the world. I recently had the honor of meeting with a group of North 
Korean refugees and heard their concerns about the deplorable human 
rights abuses committed by the North Korean regime. They described 
horrific conditions inside the country and the terrifying journey 
through China to freedom. If confirmed, I will continue to prioritize 
North Korean human rights. I will seek additional ways to amplify 
refugee voices, promote accountability for those responsible for human 
rights violations and abuses, and increase the flow of independent, 
uncensored information into, out of, and within the DPRK. In addition, 
I will continue to press for China to stop its practice of detaining 
and refouling North Korean asylum seekers.
    In engagement across the region, including at the highest levels, 
we should continue to constantly message the importance of an active 
civil society, protection of human rights, and respect for the rule of 
law. We should also continue working with likeminded governments and 
NGO partners to sustain and expand programs to support embattled civil 
society organizations and provide them with the resources they need to 
continue their vital work. We should keep vetting all security force 
units prior to their receipt of U.S. funded assistance in accordance 
with the Leahy Law, and not provide assistance to any security force 
unit where we have credible information of commission of a gross 
violation of human rights. If confirmed, I will work to ensure that we 
continue to apply the Leahy Law, and will continue to examine closely 
cases that may merit the application of sanctions under the Executive 
Order 13818, which implements the Global Magnitsky Human Rights 
Accountability Act.
    If confirmed, I will continue to uphold and work to advance the 
fundamental U.S. values of democracy and human rights in the region.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in advancing human 
rights, civil society and democracy in general?

    Answer. Backsliding on democracy, governance, corruption and human 
rights is undermining prospects for stability and growth in some 
countries. The shifting tactics of authoritarian regimes to constrain 
civil society represent difficult obstacles and challenges to advancing 
human rights, civil society, and democracy in general in the region.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the East Asia and Pacific region?

    Answer. Yes. I have met frequently with representatives from human 
rights, civil society, and other non-governmental organizations 
throughout my career. If confirmed, I will continue to be committed to 
meeting with these organizations in the United States and in the East 
Asia and Pacific region.

    Question 5. Will you and your team actively engage with countries 
in the East Asia and Pacific region to address cases of key political 
prisoners or persons otherwise unjustly targeted?

    Answer. Yes. If confirmed, my team and I will actively engage with 
countries in the East Asia and Pacific region to address cases of key 
political prisoners or persons otherwise unjustly targeted.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will work to ensure that we continue to 
faithfully uphold and apply the Leahy Law and ensure we do not provide 
assistance to any security force unit where we have credible 
information of commission of a gross violation of human rights. If 
confirmed, I will ensure that our staff at our posts and in the EAP 
Bureau dedicated to Leahy vetting continue to receive accurate, current 
guidance on the Leahy Law and continue to vet all security force units 
prior to their receipt of U.S. funded assistance.

    Question 7. Will you engage with the people of the East Asia and 
Pacific region on matters of human rights,civil rights and governance 
as part of your mission?

    Answer. Yes. If confirmed, I will continue to engage with the 
people of the East Asia and Pacific region on matters of human rights, 
civil rights and governance as part of my mission.

    Question 8. What will you do to promote, mentor and support your 
staff who come from diverse backgrounds and underrepresented groups in 
the Civil and Foreign Service?

    Answer. I believe strongly in the value of diversity. I will 
continue to be committed to fostering a diverse and inclusive team, as 
I have throughout my career, including as Principal Deputy Assistant 
Secretary in the Bureau of East Asian and Pacific Affairs where I have 
stressed the importance of inclusion, leadership, and professional 
development in our recruitment of personnel. If confirmed, I will 
ensure that the EAP Bureau continues to promote equal opportunities for 
all of our personnel, particularly those from diverse backgrounds or 
historically underrepresented groups. I will also ensure EAP managers 
prioritize mentoring and ensure that we are developing a new generation 
of diplomats to represent our country effectively. I will encourage my 
Deputy Assistant Secretaries, Office Directors, and Deputy Directors to 
play an active role in outreach to the Department's 13 Employee 
Affinity Groups and 19 Employee Organizations so we can recruit and 
retain a workforce that reflects the diversity of American society. By 
collaborating closely with these and other groups, we can foster an 
environment that is diverse and inclusive. I will foster a work 
environment which recognizes the contributions of all employees, and 
will make sure they have information available about the Department's 
Diversity and Inclusion Strategic Plan. In the past year as Acting 
Assistant Secretary, diversity has been a core value in our recruitment 
at all levels, and especially for leadership positions as I believe we 
need to model diversity at the highest levels of government.

    Question 9. What steps will you take to ensure your supervisors are 
fostering an environment that is diverse and inclusive?

    Answer. I will continue to emphasize the importance of diversity, 
leadership, and professional development for all of our employees and 
reward supervisors who proactively bring in new and diverse voices and 
ideas to their teams and their work products. I am very supportive of 
Department of State programs to promote diversity, including through 
mechanisms such as the Pickering and Rangel Fellowships. I am proud 
that EAP is slated to host over two dozen Pickering and Rangel Fellows 
in domestic and overseas positions this summer where we can share 
unique opportunities in the EAP region. I hope their positive early 
career experiences serving in the EAP region will encourage their 
subsequent return to more senior Civil or Foreign Service assignments 
in our region.
    I encourage supervisors to value the contributions of all members 
of their team: Civil Service, Foreign Service, Locally Engaged Staff, 
expanded professional associates (EPAP), and employed family members 
(EFMs), Fellows, and interns, etc. I have emphasized to supervisors the 
importance of giving constructive feedback, not just in the annual 
performance evaluations but throughout the year. As the Bureau 
leverages opportunities for training, public-speaking, travel, and 
formal or informal leadership, selecting EAP candidates that represent 
the geographic and cultural diversity of American society will be an 
important factor. We are working to increase the mobility and 
opportunities for advancement for our Civil Service team members by 
identifying developmental roles and establishing career ladders for 
many of our positions. This will empower and motivate Civil Service 
colleagues to remain connected with our missions overseas and enable us 
to retain expertise in the Department.
    In addition to creating opportunities for employees to continue 
their professional development, I support formal and informal 
networking across the bureau to encourage mentoring and exchange of 
diverse views at all levels. I have encouraged hiring managers to 
consider the profile of their current teams and find ways to recruit to 
add new skill sets and diversity of views and experiences to their mix. 
The recruitment of personnel from diverse backgrounds and 
underrepresented groups into the Civil and Foreign Service is something 
I have strongly supported, and if confirmed, I will continue to 
prioritize this in the professional development of EAP's managers and 
leaders.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to fully comply with all relevant federal ethics 
laws, regulations, and rules, and to raise concerns, if any arise, 
through appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns, should they arise, 
through appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the East Asia and Pacific region?

    Answer. My investment portfolio includes diversified funds that may 
have investments in companies in the East Asia and Pacific region; 
however, the funds are exempt from the conflicts of interest rules and 
have been reviewed by the State Department Ethics Office. I am 
committed to ensuring that my official actions will not give rise to 
conflicts of interest. I will divest my interests in any investments 
the State Department Ethics Office deems necessary in the future to 
avoid a conflict of interest, and will remain vigilant with regard to 
my ethics obligations.

    Question 13. Does the State Department agree with the determination 
of the U.N., Human Rights Watch, and several senators in this Congress, 
that the atrocities committed in the last year amount to crimes against 
humanity? If not, why not?

    Answer. The Secretary of State reviewed the facts available to him 
as part of a careful and deliberative process, and concluded that 
abuses in Burma's northern Rakhine State, by some among the Burmese 
military, security forces, and local vigilantes, constituted ethnic 
cleansing against Rohingya. This determination in no way prejudices any 
further analysis on whether other mass atrocities have taken place, 
including crimes against humanity.

    Question 14. Do you, speaking for yourself, believe the atrocities 
amount to crimes against humanity? If you cannot answer, will you 
pledge now to conduct an immediate review, with consultation with civil 
society, and with this committee, and reach a determination about the 
legal status of the atrocities committed in Rakhine?

    Answer. I share your grave concern regarding the atrocities 
committed by Burmese security forces and vigilantes against Rohingya, 
and believe that those responsible for human rights abuses and 
violations should be held accountable. Historically, the Secretary of 
State has decided whether to characterize particular atrocities as 
genocide, crimes against humanity, or ethnic cleansing after reviewing 
factual assessments and legal assessments.

    Question 15. If the U.S. Government determined that crimes against 
humanity had been committed, what would be the response?

    Answer. If the Secretary of State determines that crimes against 
humanity occurred, if confirmed, I would have the EAP bureau work with 
others in the Department, Congress, and the interagency, as well as 
relevant international bodies and partners, to shape an appropriate 
response, consistent with applicable law.

    Question 16. Would you agree that the U.S. Government should seek 
debate in the U.N. Security Council on whether to refer the situation 
in Burma to the International Criminal Court? If not, why not?

    Answer. Whether to seek debate in the U.N. Security Council on a 
particular issue, as well as whether to support particular action by 
the U.N. Security Council, is a decision that would be made in 
consultation with other bureaus in the Department, relevant agencies, 
and the National Security Council.

    Question 17. Has the State Department determined whether the 
atrocities in Rakhine amounted to genocide? Has the State Department 
determined that the atrocities in Rakhine did not amount to genocide?

    Answer. The Secretary of State reviewed the facts available to him 
as part of a careful and deliberative process, and concluded that 
abuses in Burma's northern Rakhine State, by some among the Burmese 
military, security forces, and local vigilantes, constitute ethnic 
cleansing against Rohingya. This determination in no way prejudices any 
further analysis on whether other mass atrocities have taken place, 
including genocide.

    Question 18. Do you agree that the U.S. Government would be 
obligated to determine that the crime of genocide was committed, if 
credible information is obtained that shows a ``genocidal intent'' on 
the part of perpetrators? Do you agree that genocidal intent is shown 
when credible information is obtained that perpetrators committed the 
atrocities in Rakhine with the intent to destroy the Rohingya 
population in Burma in whole or in part, whether by outright violence, 
destruction of property, or full-scale deprivation of basic rights? If 
credible information showing such intent was obtained, do you not agree 
that the U.S. Government would be obligated to determine that genocide 
had been committed?

    Answer. ``Genocide'' is defined in the 1948 Convention on the 
Prevention and Punishment of the Crime of Genocide (the ``Genocide 
Convention''), which the United States ratified in 1988. Historically, 
the Secretary of State has decided whether to characterize particular 
atrocities as genocide after reviewing factual and legal assessments.

    Question 19. If the U.S. Government determined that genocide had 
been committed, what would be the response?

    Answer. If the Secretary of State determines that genocide 
occurred, if confirmed, I would have the EAP bureau work with others in 
the Department and the interagency, as well as relevant international 
bodies and partners, to shape an appropriate response, consistent with 
applicable domestic and international law.

    Question 20. Responses to Burma: The Government of Burma has not 
responded to any of the main pleas by the U.S. Government and 
international actors to address the atrocities in Burma.
    They have refused to cooperation with a U.N. mandated fact finding 
mission, have now declared the special rapporteur persona non grata, 
and largely refuse to provide access to Rakhine by U.N. and 
humanitarian actors, human rights groups, and journalists. All of this 
stubbornness and obstruction occurs as Burma's nascent democratic 
transition shows signs of weakening. The military has completely 
blocked efforts to end its constitutionally protected role in the 
Government, and it is still committing serious abuses during operations 
in other ethnic minority areas, blocking access to humanitarian 
agencies, and causing mass displacement.
    Given the context of the terrible abuses in Rakhine, and breakdown 
in the democratic transition, it is now clear that ordinary diplomatic 
approaches of engagement and dialogue are no longer meaningfully 
effective, and clearing the administration agrees, because it has now 
begun, at the U.N. Security Council in New York and the U.N. Human 
Rights Council in Geneva, to press for stronger measures against Burma, 
and has bilaterally imposed travel restrictions on military commanders, 
and recently added a senior Burmese military official, Gen. Maung Maung 
Soe, to the Treasury Department Specially Designated Nationals (SDN) 
list.
    Do you agree with this approach? Do you agree that the time has 
come for stronger measures, aimed at imposing real world costs on 
Burmese military commanders implicated in abuses and who are imperiling 
the democratic transition?

    Answer. I share your grave concern regarding the atrocities 
committed by Burmese security forces and vigilantes against Rohingya. 
We should target sanctions of Burmese military officials responsible 
for human rights abuses and violations, both to promote accountability 
and to apply further pressure on the military to cooperate with the 
international community. At the same time, while the elected civilian 
government has short comings, it is more open to continued progress on 
human rights and democratic reform than the military. Given the complex 
role the military has in the country, and the ongoing struggle between 
the military and the elected civilian government, we should carefully 
calibrate our actions such that they do not have unintended spillover 
effects that could strengthen the military vis-a-vis the civilian 
government, for example by damaging the larger economy or engendering 
greater public support for the military.

    Question 21. Do you agree that, if handled correctly, increased 
sanctions on senior military commanders could help pressure them to 
begin cooperating with the international community?

    Answer. Targeted sanctions on Burmese military officials represent 
one of the key policy tools to apply pressure on the military to 
cooperate with the international community, and we should consider 
additional targeted sanctions as appropriate.

    Question 22. Will you pledge to accelerate efforts to add more 
names of senior military commanders to the SDN list?

    Answer. We should consider options to promote accountability for 
Burmese military officials involved in atrocities, including with 
additional targeted sanctions. All sanctioned persons are added to 
Treasury's Specially Designated Nationals and Blocked Persons (SDN) 
list.

    Question 23. Do you support the passage of S. 2060, Burma Human 
Rights and Freedom Act, in this Congress? If not, why not?

    Answer. I believe we should continue to help the democratically-
elected government improve governance, human rights, and economic 
reforms. The civilian leadership, for example, has undertaken nascent 
reform efforts, and it's important we are careful not to inadvertently 
undermine those efforts. I believe targeted actions, rather than broad 
sanctions, can be the most effective means for holding Burma's military 
to account for abuses.

    Question 24. What other increased costs can the U.S. Government 
impose on the senior Burma military command, to change their thinking 
and behavior?

    Answer. In response to the Burmese military's role in the crisis in 
Rakhine State, the United States has ceased consideration of JADE Act 
travel waivers for current and former senior leaders of the Burmese 
military, and has withdrawn invitations for Burmese officials to 
participate in events with the U.S. military. We should continue 
options to promote accountability, including targeted sanctions. In 
addition, pursuant to the Leahy Law, the United States has assessed 
that there is credible information implicating all military units and 
officers involved in operations in northern Rakhine State in the 
commission of gross violations of human rights, as such making them 
ineligible to receive U.S. assistance.

    Question 25. Do you pledge to work with your colleagues at the 
State Department to urge other states and regional entities, including 
the European Union, to impose sanctions and travel restrictions?

    Answer. If confirmed, I will encourage likeminded countries and 
entities to use available legal measures to promote accountability for 
members of the Burmese security forces responsible for human rights 
violations and abuses. To this end, we should provide likeminded 
countries with information, as appropriate.

    Question 26. Will you pledge to oppose Burmese military involvement 
or participation in all regional and military exercises, until and 
unless they begin to take steps to address their human rights abuses?

    Answer. In response to the Burmese military's role in the crisis in 
Rakhine State, I agree with opposing Burmese flag officer-level 
participation in regional military exercises in which the United States 
is a co-host. We should continue to do so until we assess that the 
Burmese military has taken appropriate steps to address human rights 
abuses.
TPP
    Question 27. Last week, the eleven countries that continued to 
negotiate the Trans-Pacific Partnership Agreement, including Canada and 
Mexico, announced that they will sign a new version of the TPP in 
March.

   In your view[s], how would a renegotiated TPP affect the trading 
        and economic relationship among the U.S., Japan, Australia, and 
        ASEAN nations involved?
   I had some concerns about TPP. But I'm also concerned that 
        unilaterally removing the U.S. from those discussions may not 
        only have undermined our ability to engage constructively in 
        the Asia-Pacific region, but may also have an indirect effect 
        on economic opportunities with our closest neighbors.

    Answer. The President has consistently expressed an interest in 
pursuing trade agreements that serve the interests of U.S. businesses, 
workers, and long-term U.S. economic security. This includes 
strengthening our economic relationships across the Indo-Pacific 
region, including with the TPP-11 countries, in any way that achieves 
these goals. As the President has made clear, we should only consider 
TPP if we are able to make a substantially better deal for the United 
States.
    We should work with our partners to advance high-standard, free, 
fair, and reciprocal trade and investment relationships.
    If confirmed, I will focus on expanding opportunities for U.S. 
firms across the Indo-Pacific and rebalancing our economic 
relationships to ensure fairness. We should also continue to work 
bilaterally and through multilateral fora such as APEC to encourage 
economic growth and open and fair business opportunities.

    Question 28. Human Rights Watch has estimated that the number of 
victims killed by President Duterte's drug war campaign is more than 
12,000. We need to send a much stronger message to the Philippines and 
President Duterte--and also assure that our hands are not covered in 
blood as well if U.S. weapons or other support for the Philippines 
National Police are used in some of these murders. If confirmed, how do 
you plan to send a stronger message that the United States will not 
stand idly by as President Duterte continues to violate international 
law and kill his own people without due process?

    Answer. The United States has expressed its serious concerns 
regarding extrajudicial killings associated with the drug war on 
multiple occasions with Philippine Government officials, and we should 
continue to do so. If confirmed, I will continue to urge the Philippine 
Government to ensure that its law enforcement efforts are consistent 
with its human rights obligations and conducted in accordance with the 
rule of law. I will also encourage the Philippine Government to conduct 
thorough and transparent investigations into all credible reports of 
extrajudicial killings.
    The best way for the Philippines to deal with the issue of 
combating illicit drugs is by adherence to the rule of law and 
strengthening community resources and support systems. Therefore, we 
are working with the Philippines to improve drug prevention, treatment, 
and rehabilitation programs; strengthen respect for human rights; and 
build capacity of the justice sector to handle criminal cases 
effectively, efficiently, and in line with the rule of law. We also vet 
all security force units prior to their receipt of U.S. funding in 
accordance with the Leahy Law which prohibits assistance to any 
security force unit where we have credible information that the unit 
has committed a gross violation of human rights.



                               __________


     Responses to Additional Questions for the Record Submitted to
                Susan A. Thornton by Senator Todd Young

    Question 1. Ms. Thornton, thank you for meeting with me this week. 
I enjoyed our discussion and look forward to working together in the 
future. Based on my concerns and the counsel of my constituents, I have 
been active in attempting to help address the horrible crisis in Burma 
and Bangladesh impacting the Rohingya. It is important to be clear--
what we have seen in Burma constitutes a clear and deplorable case of 
crimes against humanity and ethnic cleansing. I believe it is 
imperative to protect ethnic and religious minorities in Burma and hold 
the Government accountable. Ms. Thornton, if confirmed, do you commit 
to working with me and this committee to craft the best possible U.S. 
policy toward Burma?

    Answer. I share your serious concern regarding the atrocities 
committed in northern Rakhine State, which Secretary Tillerson has 
concluded constituted ethnic cleansing against Rohingya. I am also 
deeply concerned by the humanitarian situation of the over 688,000 
Rohingya refugees who have fled to neighboring Bangladesh as a result 
of the violence, as well as the internal displacement of thousands 
remaining in Rakhine State. In addressing these challenges, I believe 
the Department should engage closely with Congress on Burma and if 
confirmed, I will do so.

     Responses to Additional Questions for the Record Submitted to
             Susan A. Thornton by Senator Edward J. Markey

    Question 1. Within the State Department budget, how would funding 
for Asia-related issues change from the enacted FY2017 budget?

    Answer. The FY 2019 foreign assistance request of $431 million for 
the Asia-Pacific region is 10 percent above the FY 2018 request and 47 
percent below the FY 2017 Actual.
    The FY 2019 Diplomatic Engagement request of $315 million for the 
Asia-Pacific region is 3 percent below the FY 2018 Request and a 14 
percent below the FY 2017 Actual.
    This budget request would support the administration's Indo-Pacific 
strategy that is based on respect for sovereignty, democratic values, 
the rule of law, open markets, fair and reciprocal trading frameworks, 
freedom of navigation, and private sector-led economic growth. The 
request supports programs that help counter violent extremism, 
strengthen maritime capacities, defend against cyberattacks, tackle 
transnational crime, and promote trade and investment that will foster 
economic opportunities for the American people.
    The request also funds the strategic priorities in the Indo-Pacific 
by supporting U.S. treaty allies and emerging strategic partners to 
promote shared national security interests, trade, and investment that 
fosters economic opportunities for the American people.

    Question 2. There is no U.S. Ambassador to South Korea. The 
Coordinator for Sanctions Policy position was eliminated. Please 
describe how the State Department will be staffed to successfully 
execute the administration's North Korea policy--both the 
``engagement'' component, as well as the ``pressure'' component.

    Answer. I believe the Department is fully capable and appropriately 
staffed to conduct both pressure and engagement regarding North Korea. 
The Office of Korean Affairs works closely with multiple other bureaus 
and offices in the State Department, and with interagency partners, to 
effectively implement the U.S. Government's North Korean policy. We 
have a highly capable and well-respected senior diplomat, Charge 
d'Affaires Marc Knapper, leading our tremendous U.S. Embassy team in 
Seoul.

    Question 3. Which countries still provide the greatest revenue 
streams to North Korea? When executing the so-called pressure campaign, 
how would you prioritize which countries would receive the greatest 
pressure?

    Answer. Entities in China and Russia still provide the greatest 
revenue streams to North Korea. Both governments have said they are 
committed to implementing U.N. Security Council resolutions to their 
fullest extent, though there is still illicit trade with North Korea. 
North Korean workers in China and Russia also provide a revenue stream 
to the regime. Stopping illicit transactions from these entities in 
China and Russia continue to be an administration priority to reduce 
the revenue streams that support the DPRK regime's illegal nuclear and 
missile programs.

    Question 4. Can the United States deter a North Korea armed with a 
nuclear-armed intercontinental ballistic missile, and how would that 
shape policy formulation? If North Korea can be deterred, why should 
the United States consider a preventive military strike, especially 
given the potential consequences? If North Korea cannot be deterred, 
how would a limited strike teach Kim Jong Un not to strike the United 
States or our allies?

    Answer. The administration has stated that its goal is the 
complete, verifiable, and irreversible denuclearization of the Korean 
Peninsula and that the administration seeks to achieve that goal 
through a peaceful, diplomatic solution. This is being done through 
putting maximum pressure on the North Korean regime to change Kim Jong 
Un's calculus, so that he will engage in meaningful dialogue towards 
denuclearization. The United States should continue to lead the 
international community in diplomatically and economically isolating 
the North Korean regime. However, as the President and the Secretary of 
State have also made clear, all options are on the table.

    Question 5. Getting U.S. China policy right is critical for U.S. 
prosperity and security. China is the biggest strategic competitor to 
the United States and seeks to gain advantages where it senses 
weakness. How can the United States better protect a free and open 
liberal international order, intellectual property rights, and a 
democracy free from Chinese Government influence without overly risking 
a trade war, or worse, military conflict?

    Answer. The United States should continue to work cooperatively 
with allies and like-minded partners to uphold the rules-based order, 
and to advance fundamental U.S. values around democracy, human rights, 
and the rule of law in the Indo-Pacific region. We should continue to 
promote democratic values and work closely with other democracies to 
strengthen respect for human rights and fundamental freedoms, including 
freedom of expression and freedom of religion or belief. If confirmed, 
I am committed to continuing to make use of all tools at our disposal 
to press China to live up to its responsibilities as a member of the 
rules-based international order.
    The United States should have a constructive, results-oriented 
relationship with China. We should not shy away from speaking 
forthrightly about and contesting Chinese policies and actions that 
undermine the international order that has fostered peace and 
prosperity in the Indo-Pacific region for decades. We should continue 
to work with China on important issues, from North Korea to countering 
the flow of illegal opioids to encouraging greater protection of 
intellectual property rights. At the same time, we should draw a clear 
distinction where we disagree, and I will, if confirmed, remain 
committed to defending our values and championing human rights and 
fundamental freedoms around the world.

    Question 6. In his State of the Union speech, President Trump asked 
Congress to pass legislation to help ensure U.S. foreign assistance 
dollars ``always serve American interests, and only go to America's 
friends.'' How would a more transactional approach to U.S. foreign aid 
benefit U.S. interests? How would such a policy change shape U.S. 
foreign assistance in the Asia-Pacific?

    Answer. The FY 2019 budget request provides the necessary resources 
to advance peace and security, expand American influence, and address 
global crises, while making efficient use of taxpayer resources. It 
will modernize State Department and USAID diplomacy and development to 
advance a more secure and prosperous world by helping to support the 
development of more stable.
    I believe it is important to assess our foreign assistance 
carefully to make sure that it serves American interests. If confirmed, 
I look forward to working with Congress to ensure U.S. foreign 
assistance continues to serve American interests.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Francis R. Fannon by Senator Robert Menendez

U.S. Energy Diplomacy (specific countries)

    Question 1. Recent gas finds in the eastern Mediterranean have the 
potential to make Israel a net energy exporter for the first time in 
its history and have created opportunities for energy cooperation as 
well as potential conflict between Israel and its neighbors.

   What do you believe is the United States role in Middle East energy 
        diplomacy?

    Answer. The United States role in Middle East energy diplomacy is 
to engage nations throughout the region in support of our own energy 
security goals and the energy security of our partners. Our diplomacy 
should ensure that energy flowing from, into, and within the region is 
affordable, reliable, and from diversified sources. U.S. energy 
diplomacy should support increasing exports of U.S. energy resources 
and technologies to the region as appropriate. Further, the United 
States should ensure energy markets in the region are free and 
transparent so that U.S. businesses can compete fairly for new 
opportunities abroad. The United States is now a global leader on all 
energy fronts--particularly production and innovation--and we can work 
with our partners in the region to diversify their energy sectors, 
reduce vulnerabilities, and promote our mutual energy security 
interests.

    Question 2. Recent gas finds in the eastern Mediterranean have the 
potential to make Israel a net energy exporter for the first time in 
its history and have created opportunities for energy cooperation as 
well as potential conflict between Israel and its neighbors.

   If confirmed, what will your priorities be with respect to your 
        Bureau's engagement in the region?

    Answer. If confirmed, my priority for the Bureau of Energy 
Resources' engagement in the Middle East will be to support U.S. 
foreign policy goals, including the energy security of the United 
States and of our partners by ensuring the region contributes to stable 
and efficient global energy markets. In working with our partners in 
the Middle East to diversify their energy sectors, we can also 
encourage greater energy integration among them. We can strive for this 
by promoting a shared economic prosperity that can serve as the 
foundation for peace and better relations. Our engagement will seek to 
create new commercial opportunities in the Middle East for U.S. 
businesses and develop new export markets for U.S. energy resources, 
technologies, and services.

    Question 3. Lebanon's recent offshore gas tender includes part of 
Israel and Lebanon's disputed maritime border. Israeli Energy Minister 
Yuval Steinitz has said that a diplomatic resolution to the dispute 
``is preferable to threats'' but has also warned Lebanon not to explore 
in the disputed line of contact.

   If confirmed, how will you engage with both sides to resolve this 
        issue?

    Answer. I understand that both sides appreciate the strong prospect 
for the private sector to develop offshore resources in the vicinity of 
the disputed area should an arrangement between them be reached. If 
confirmed, and if there was interest in a U.S. role facilitating 
negotiations on the area of overlapping maritime claims by Israel and 
Lebanon, I would work with State Department colleagues to help the 
parties proceed in reaching a resolution quickly and in a manner 
acceptable to both Lebanon and Israel.

    Question 4. Lebanon's recent offshore gas tender includes part of 
Israel and Lebanon's disputed maritime border. Israeli Energy Minister 
Yuval Steinitz has said that a diplomatic resolution to the dispute 
``is preferable to threats'' but has also warned Lebanon not to explore 
in the disputed line of contact.

   Do you see any potential for cooperation between the two countries 
        (Lebanon and Israel)?

    Answer. I understand that both countries' officials are interested 
in drawing upon the best practices and lessons learned from developing 
and marketing offshore hydrocarbons elsewhere in the Eastern 
Mediterranean to develop their offshore resources for the benefit of 
their peoples. If confirmed, I would work with State Department 
colleagues to help the parties reach a resolution quickly and in a 
manner acceptable to both Lebanon and Israel.

    Question 5. Iraq, despite its hydrocarbon resources, is Iran's 
second largest export market for natural gas.

   How can improvements to Iraq's energy infrastructure improve its 
        domestic gas production capacity?

    Answer. Despite having the world's twelfth-largest gas reserves--
nearly 3.8 trillion cubic meters (tcm)--Iraq's natural gas production 
in 2016 was just 1,000 million cubic meters (mcm), lagging far behind 
the other hydrocarbon-producing countries in the region. Further, Iraq 
has the world's second-largest natural gas flaring rate and burns off 
about 48 mcm per day mcmd (representing about $2.5 billion in annual 
value lost). This gas flaring takes place because Iraq does not have 
the necessary gas processing and transport infrastructure.
    Iraq could alleviate the need for expensive imports, improve the 
reliability of its electricity delivery, and eventually become a major 
exporter of gas and petrochemicals if it addresses the flaring of 
associated gas at major oil production sites and develops its 
considerable domestic gas resources.
    I understand that American companies are already seeing success 
participating in Iraq's gas industry. GE is installing gas turbines in 
electrical plants and Orion Gas Processors recently announced a 
framework agreement to build facilities to capture the gas from a field 
in southern Iraq and to transform it into usable fuels. Other U.S. 
companies are engaging the Iraqi Ministry of Oil to help reduce gas 
flaring and to utilize this wasted resource.

    Question 6. Iraq, despite its hydrocarbon resources, is Iran's 
second largest export market for natural gas.

   If confirmed, how would you work with Iraq to lessen its dependence 
        on Iranian gas?

    Answer. Iraq began importing gas from Iran in June 2017--starting 
at 7 million cubic meters per day (mcmd), with the potential to 
increase significantly--resulting in an estimated $3.7 billion in 
annual revenue for Iran. By developing its own substantial natural gas 
resources, Iraq could significantly reduce its dependence on Iranian 
gas while building up its own energy infrastructure and economy.
    Assisting Iraq in reducing its dependence on Iranian gas must be an 
important part of the effort to improve Iraq's energy security. 
Increasing Iraq's resilience in the face of attempts to use energy as a 
source of foreign influence over Iraqi foreign and national security 
policies is an important policy priority. If confirmed, I would 
continue these efforts as a critical part of an overall strategy not 
only to support Iraq but also to mitigate Iran's ability to project 
malign influence throughout the region.

    Question 7. Do you believe clean energy cooperation with China and 
India is in the U.S. interest? Will you commit to continuing the 
separate bilateral efforts on clean energy development with China and 
India?

    Answer. I believe clean energy cooperation with China and India 
advances U.S. energy security and opportunities for U.S. business by 
advancing the broader objectives of supporting sustainable, 
transparent, and predictable international energy markets and promoting 
universal access to affordable and reliable energy.
    If confirmed, I will seek to advance secure, stable, diversified, 
and modern global energy systems that uses a broad range of market-
based energy solutions, including advanced energy technologies, 
renewable energy, energy efficiency, and energy governance with China 
and India.

    Question 8. If confirmed, under your leadership, will ENR engage in 
countries when as asked for assistance and advice on pursuing energy 
development according to their self-determined interests?

    Answer. Yes. If confirmed, I would support the Bureau of Energy 
Resources (ENR) promoting energy security for the United States and our 
partners and allies by promoting diverse global energy supplies from 
all energy sources. The United States is not in the business of picking 
winners and losers. ENR engagement, including assistance, promotes 
global political stability and prosperity through a multitude of 
avenues, including energy development and diversification. It is my 
understanding that ENR supports countries' in accordance with their 
self-determined preferences. If confirmed I would intend to continue 
this practice.

    Question 9. Will you commit to upholding the principles of self-
determination within the Power Africa program?

    Answer. Increasing electricity access in Sub-Saharan Africa is in 
the strategic interest of both the United States and African nations. 
Power Africa is a partnership. Its members--12 U.S. Government 
agencies, 16 like-minded bilateral and multilateral development 
partners, and more than 140 private sector companies--partner with 
African nations to help African leaders and citizens determine their 
own future. Power Africa works best when African Governments are 
committed to making the necessary reforms to attract investment in 
their power sectors. This also benefits the United States, opening 
opportunities for American investment in African economies.
    I understand that the Department of State utilizes ENR and our 
embassies to work with governments to strengthen enabling environments 
and implement the critical reforms that attract private investment in 
power generation, transmission, and distribution projects. When 
engaging on Power Africa, my understanding is that ENR respects the 
principle of self-determination with partner countries. If confirmed I 
would intend to continue this practice.

    Question 10. What host-country factors, beyond ENR's own resource 
and capacity constraints, would result in the U.S. limiting or 
restraining engagement on energy diplomacy?

    Answer. ENR, working with our energy officers in our embassies and 
with interagency colleagues, uses energy diplomacy and engagement to 
help resource-rich countries overcome investment climate issues that 
stifle economic growth and limit the ability of U.S. firms to compete 
fairly in those markets. If these countries can attract energy 
investments, especially cutting-edge energy technology from all energy 
sources, this will improve their own energy security and provide the 
foundation for economic growth, political stability, and democratic 
values.
    My understanding is that ENR focuses its efforts on countries 
seeking reform, U.S. allies and partners, and those with significant 
energy potential.

    Question 11. Do you believe that U.S. foreign energy policy and 
diplomacy encouraging foreign countries, particularly developing 
countries, to pursue the development of energy generation from imported 
fuels, comports with the broader U.S. foreign policy objective of 
ensuring that developing countries achieve self-reliance?

    Answer. U.S. national security benefits when other countries 
improve their energy security through domestic energy production and 
avoid overdependence on single suppliers. Access to affordable, 
reliable, diverse, and secure energy strengthens developing countries 
and their economic and political development. Diversification of fuel 
types, supply sources (countries of origin), and delivery routes also 
strengthens the energy security of those countries.
    The United States plays an important role in supporting the energy 
security of other countries through U.S. investments and U.S. exports 
of energy resources and technologies. In Eastern Europe, for example, 
U.S. liquefied natural gas (LNG) provides another option to countries 
which are overly dependent on Russian gas imports. U.S. companies, with 
their advanced technologies, are often vital to the development of the 
natural resources in other countries. Jamaica has increased its own 
energy security, and thereby reduced its dependence on Venezuelan oil 
imports, through the development of renewables and natural gas imports 
with the help of ENR's technical assistance.
    In addition to work regarding energy generation, I understand that 
ENR and U.S. embassies practice diplomacy and, in some cases, provide 
technical assistance to encourage transparency, the rule of law, and 
the establishment of proper institutional frameworks to attract long-
term energy investment. Proper Institutional frameworks can underpin 
economic development, political stability and promote shared democratic 
values.

    Question 12. What are your views on the need to balance domestic 
energy security with the energy interests of other nations?

    Answer. Countries can strengthen their own energy security through 
increasing domestic energy production, decreasing their dependence on a 
single foreign supplier, and seeking access to energy supplies through 
a variety of fuel types, sources of energy, and delivery routes. The 
United States has taken this approach. The boom in U.S. energy 
production has benefited U.S. consumers, boosted our exports, and 
increased our own national security. U. S. energy exports increases the 
energy security of other countries not only because the United States 
is a reliable, transparent supplier of all types of energy but also 
because U.S. exports increase the liquidity, price efficiency, and 
competitiveness of global hydrocarbon markets.

    Question 13. Would you oppose ENR engagement in facilitating energy 
resource development in countries that want U.S. technical expertise 
but may not want to import ``U.S. energy export?''

    Answer. If confirmed, I would support ENR promoting energy security 
for the United States and our partners and allies by promoting diverse 
global energy supplies from all energy sources. Facilitating the 
market-driven development of energy resources abroad provides 
opportunities for U.S. companies to invest and opportunities to export 
U.S. energy resources, technologies, and services including U.S. 
technical expertise. Doing so helps our allies and partners diversify 
their energy sources and bring economic gains back home. We believe in 
free and open markets. U.S. businesses are competitive across the 
energy sector in the development and provision of resources, 
technologies, and services. They can compete more effectively on a 
level playing field.

    Question 14. What assurances can you give me that the President, 
the NSC, or Sec. Tillerson share your perspective?

    Answer. President Trump and Secretary Tillerson have publicly 
supported increasing the energy security of the United States and our 
partners and allies through increased energy production, greater access 
to energy markets, fewer barriers to energy trade and development, and 
U.S. energy and energy technology exports. The President and Secretary 
recognize the importance of energy security in our economic system and 
to our national security.

    Question 15. Would you pushback against any such political pressure 
that is contrary to your understanding on what and with whom ENR should 
engage based on the administration's foreign economic principles?

    Answer. As I mentioned in my opening statement, if confirmed, I 
will focus on three objectives--energy security through diplomacy, 
governance, and electricity for all. These energy goals support the 
administration's own energy and foreign policy objectives.
Pipeline/Offshore Drilling
    Question 16. How do you account for the negative externalities to 
the American people of something like a cross-border pipeline, or 
offshore drilling, if the energy resources those efforts are supporting 
are being sent abroad?

    Answer. All energy infrastructure projects bring both positive and 
negative externalities. These projects, even where they support energy 
exports, support U.S. jobs and utilize U.S. expertise and technologies. 
We should identify and take into consideration all factors surrounding 
energy projects to help policy makers assess the overall national 
interest. If confirmed, I will work with the State Department and in 
the interagency so that policy makers take into account all 
externalities and points of view expressed about energy projects.

    Question 17. What degree of responsibility do you believe oil 
companies (versus taxpayers) should bear for disaster mitigation when 
oil industry operations cause a spill or disaster?

    Answer. The Department of State does not regulate oil industry 
operations. If confirmed, I will work with the appropriate government 
officials to assure that disaster mitigation strategies and response 
plans are as robust as possible, consistent with the scope of my 
responsibilities and applicable U.S. laws.

    Question 18. Do you believe bankruptcy protection should shield oil 
companies from liability and financial responsibilities to pay for 
cleanup and recovery efforts?

    Answer. The State Department does not have jurisdiction over 
bankruptcy issues. However, if confirmed, I will work to encourage the 
use of best practices by energy companies to help ensure they meet all 
applicable obligations for cleanup and recovery, consistent with the 
scope of my responsibilities and applicable U.S. laws.

    Question 19. If confirmed, how would you approach advising foreign 
governments, including developing countries and countries with 
concentrations of vulnerable populations living near energy resources 
or industrial areas, about public health, safety and liability 
regulation of energy developers?

    Answer. If confirmed, I will continue with ENR's efforts to 
strengthen energy sector governance, access, and reliability in 
emerging economies and build the capacity of governments to develop the 
energy resources of their countries for long-term national benefit. I 
understand that ENR foreign assistance programs are integral to the 
Bureau's diplomatic engagements overseas, provide critical support for 
the Department's objectives and the administration's global diplomacy 
priorities. ENR's programs leverage expertise from across the U.S. 
Government and leading U.S. universities and laboratories. Further, I 
understand that ENR's programs also provide access to qualified 
independent subject-matter experts and technical specialists to support 
the objectives to: 1) build institutional and human resource capacity 
needed to ensure strong energy sector governance and transparency in 
the resource sectors in emerging economies; 2) provide governments and 
civil society with the tools needed to help support responsible 
development of their domestic resources; and 3) support power market 
reforms and efforts to leverage regional electrical interconnections, 
strengthen energy security, and advance regional cooperation. If 
confirmed, I will seek to continue this important work.

    Question 20. Will you commit to engaging with civil society and 
local community representatives, including marginalized populations and 
women leaders, in your diplomatic engagements on energy development 
abroad?

    Answer. If confirmed, I will seek to engage in discussions with all 
relevant stakeholders in the extractive industries including affected 
communities where these resources are located. ENR has for many years 
engaged actively with civil society representatives individually and 
within multilateral energy fora. ENR also has engaged on the important 
issue of gender and energy in multilateral engagements and through 
bilateral efforts.
    If confirmed, I will ensure the bureau continue its efforts to work 
with civil society in our diplomatic engagements on energy development 
abroad. I also will coordinate our efforts with our U.S. Agency for 
International Development colleagues to help ensure a unified message 
of engagement with civil society is implemented.

    Question 21. Will you describe your commitment to protecting human 
rights and preventing the exploitation of vulnerable populations and 
the approaches you will take to prioritize these imperatives in U.S. 
energy diplomacy?

    Answer. The protection of internationally recognized human rights 
is of paramount importance to the Department of State and to me. If 
confirmed, I will promote U.S. policies to advance these interests and 
share U.S. best practices regarding the responsible development of a 
country's domestic resources.
    ENR works with countries around the world to improve hydrocarbon 
and mineral sector governance and oversight and encourages universal 
access to affordable and reliable energy supply through power sector 
reform and development. I would continue our close collaboration with 
the U.S. Agency for International Development and work to connect the 
Governments of resource rich countries with international best 
practices for the sound and transparent governance of extractive 
resources.

    Question 22. How do you define or interpret ``U.S. energy 
exports,'' as described in Objective Goal 2.3.1 of the State Dept., and 
USAID's Joint Strategic Plan, and do you see it including facilitation 
of U.S. energy developers, not just fuels, gain access to foreign 
markets?

    Answer. I consider U.S. energy exports to include exports of our 
energy resources, technologies, equipment, and services. This approach 
is consistent with the National Security Strategy and the intent of the 
Department's Joint Strategic Plan Objective 2.3.1. U.S. exports, 
whether commodities, goods, or services, help our allies and partners 
diversify their energy sources and improve their energy security, and 
importantly, they also promote economic growth and job creation here in 
the United States. U.S. energy companies (including energy developers) 
are part of that strategic and economic value chain.
    It is important to ensure a level playing field though reduction of 
barriers that hinder U.S. companies from competing in foreign markets 
and advocacy on behalf of U.S. companies. If confirmed, I would work to 
ensure the Bureau will advance fair and reciprocal economic 
relationships in the energy sector.

    Question 23. Is ``energy exports'' code for fossil fuels? If not, 
what else are we talking about and do others like President Trump, 
Secretaries Perry and Tillerson, and Ambassador Craft agree that we are 
talking about something other than coal, oil or gas?

    Answer. The Trump administration has repeatedly and publicly called 
for an `all-of-the-above' approach to energy. The President's National 
Security Strategy (December 2017) states that the United States will 
promote exports of its energy resources, technologies, and services. It 
makes no distinction between fossil and non-fossil energy and does not 
seek to pick winners and losers. The United States is fortunate to be a 
leader in energy development, production, and innovation across the 
entire range of energy sources. As such, I understand that ENR promotes 
U.S. exports of energy resources, technologies, and services--including 
highly efficient fossil fuels and renewables--through engagement with 
foreign governments to ensure fair and reciprocal treatment for U.S. 
companies operating in overseas markets. The Bureau also works in 
partner nations to build institutional capacity; provides the tools to 
support responsible resource development; and, supports power market 
reforms, all of which advance administration priorities and allow our 
partners to make fully informed, market-based decisions.

    Question 24. How would ENR ``promote'' U.S. oil or coal exports in 
foreign policy when these commodities are traded globally based on 
global market prices per unit, and that the basic economic principles 
of supply and demand determine production and sales?

    Answer. ENR promotes U.S. oil and coal exports by promoting open, 
transparent, and market-based energy sectors and removing barriers to 
trade, which increases opportunities for U.S. energy exporters 
regardless of fluctuations in commodities prices. ENR promotes energy 
security for U.S. allies and partners, which includes the 
diversification of energy sources, supplies, and routes. As the United 
States is a reliable supplier and a recent exporter of multiple energy 
resources, ENR has been able to promote U.S. energy exports, including 
oil, coal, and liquefied natural gas, to strengthen global energy 
security. ENR furthers U.S. energy technology exports, including 
advanced clean coal power generation equipment, through commercial 
advocacy. ENR also supports the transformation of electricity markets 
in key countries, helping to develop the transparent and competitive 
market mechanisms that often make low-cost fuels the most efficient 
choice of power supply.

    Question 25. What is your experience in facilitating ``alternative 
energy'' development and how does it compare with your experience (in 
terms of time and scope) with fossil fuel energy development?

    Answer. I have considerable experience working with both fossil-
based and non-fossil based energy. As such, it is difficult to assess 
time and scope with precision in light of this overlap.
    For example, while serving as senior Legislative Assistant to 
Senator Ben Nighthorse Campbell, I drafted Good Samaritan legislation 
which sought to promote the clean-up of abandoned hard rock mines that 
were leaching into and harming watersheds. As counsel to the Senate 
Committee on Environment & Public Works committee, I drafted and 
negotiated a variety of provisions to the Energy Policy Act of 2005, 
including the motor fuels title, which established the Renewable Fuels 
Program.
    As head of Murphy Oil Corporation's government affairs function, I 
worked on a variety of oil and natural gas projects in the U.S. and 
elsewhere. Yet, I also supported Murphy Oil's acquisition of Hankinson 
Renewable Energy, a significant ethanol plant based in Hankinson, North 
Dakota.
    BHP Billiton is the world's largest diversified resources company. 
As head of their Washington office, I supported the company's oil and 
gas operations. I also supported BHP's sale of U.S. coal mines, in 
particular of its Navajo coal mine to the Navajo Nation. That 
transaction represented a meaningful act of the Navajo Nation's right 
to self-determination, as it turned the prior owner, BHP, into their 
employee.
    In addition, as a ``diversified resources company,'' BHP invested 
in other commodities that were foundational to ``alternative energy.'' 
For example, solar and electric vehicles require significantly more 
copper than coal-based generation or internal combustion engines. BHP 
owns and operates the world's largest copper mine. I supported BHP's 
public rollout of its Climate Change: Portfolio Scenario Analysis. That 
document and others illustrated that irrespective of potential policy 
scenarios, the company projected significant growth. The company's 
diversity of commodities meant that it could reallocate investment to 
whatever commodity would flourish.

    Question 26. If the contrast is great, will you commit to 
recruiting experts to manage this important part of ENR's portfolio?

    Answer. I believe in the importance of diversity in terms of 
cultures, genders and points of view. If confirmed, I commit to recruit 
the best experts to advance ENR's portfolio.

    Question 27. Do you believe it is appropriate for ENR to endorse or 
promote particular energy technologies or products?

    Answer. If confirmed, I will support an all of the above 
international energy policy that strengthens the energy security of the 
United States and our allies. Maintaining market access for U.S. energy 
products, technologies and services, and ensuring sustainable, 
transparent, and predictable international energy markets for our 
partners and ourselves is crucial to our security. ENR is not in the 
business of picking winners and losers. However, ENR does leverage its 
technical expertise to provide solutions that are appropriate for 
different contexts. I recognize that market-informed laws and 
regulations are essential to balancing emissions reduction and economic 
growth goals. Laws and regulations should be performance-based and 
technology neutral.

    Question 28. What do you believe the President meant when he said 
in the State of The Union on January 20, 2018: ``I am asking the 
Congress to pass legislation to help ensure American foreign Assistance 
dollars always serve American interests, and only go to our friends.?''

    Answer. The President is committed to ensuring that American 
foreign assistance serves American interests. The 2019 Budget 
prioritizes assistance that protects the American people, promotes U.S. 
prosperity, and advances American interests and values.

    Question 29. How do you believe a policy that ``ensure[s] American 
foreign Assistance dollars always serve American interests, and only go 
to our friends'' would, or should, be carried by the ENR bureau?

    Answer. It is important to assess our foreign assistance based on a 
number of factors, with the top reason being that our assistance should 
serve American interests. Countries' support for U.S. priorities in 
international fora is one indicator to consider, but there are other 
important factors to consider as well.

    Question 30. Do you believe the U.S. should limit diplomatic and 
development engagements to our ``friends?'' Who are our ``friends?'' 
Would you agree that disengaging with nations who may not necessarily 
be our ``friends'' could create opportunities for our global 
competitors like Russia and China, or extremist elements like Boko 
Haram and ISIS, to fill the void we create?

    Answer. The U.S. Government has a longstanding policy of using 
diplomacy and development not only to strengthen existing friendships 
but to build new ones, and to pursue pragmatic and constructive 
relationships even with those governments with which there are many 
areas of deep disagreement. For this reason, the United States 
maintains broad and continuing dialogues not only with our closest 
partners and allies but with strategic competitors. The Trump 
administration has stated its commitment to use America's influence to 
promote peace, prosperity, and the development of successful societies. 
If confirmed, I would uphold this commitment and ensure the Department 
of State uses energy diplomacy to establish a stable, secure, and 
resilient global energy supply, to strengthen the transparency and 
efficiency of global energy markets, and to promote universal access to 
affordable and reliable energy. Achieving these goals will require the 
United States to broaden the consensus behind these core principles by 
reaching beyond its traditional partners and allies. There is also a 
clear need to prevent foreign powers, criminal groups, or terrorist 
organizations from using political and economic influence or overt acts 
of violence to undermine these goals. If confirmed, I would continue 
State Department efforts to ensure energy resources are not used for 
malign political ends or to finance criminal or terrorist activities.

    Question 31. If a country determines its best interests are to 
mobilize its own domestic energy resources, i.e. not import of U.S. 
fossil fuels, would that count against considering them ``an economic 
partner of the U.S.'' or not a ``friend?''

    Answer. If confirmed, I will continue the State Department's work 
to lower barriers to investment, improve commercial climates, and 
ensure U.S. energy companies are able to compete on a level playing 
field across the globe, and I am confident that U.S. energy exports 
will continue not only to compete but to thrive in the years ahead.
    Yet, it is unrealistic to think that U.S. exports alone will solve 
the world's energy security challenges. As such, the United States is a 
strong supporter of the right of every country to develop its own 
sovereign national resources in pursuit of national security and 
prosperity. The strong and vocal support of the United States for 
projects such as the Southern Gas Corridor--a project that will not 
transport a single molecule of U.S.-origin natural gas, but will help 
our partners and allies in Europe improve the diversity and stability 
of their energy supply--demonstrates a commitment to energy security 
that is distinct from efforts to promote the export of U.S. energy 
resources, services, and technologies. If confirmed, I will promote 
energy security even where U.S. energy exports are not directly 
implicated.

    Question 32. Was your departure from BHP at all related to the 
company's portfolio shift towards less carbon intensive activities and 
changes in political and federal strategy with respect to climate 
change have anything to do with your departure?

    Answer. No. BHP did not and would not shift its business strategy 
according to political changes in the U.S. or anywhere else in the 
world. BHP views its investments and operational decisions according to 
50 plus year time horizons. Further, BHP's commodity diversity provides 
a high degree of resilience under any potential global policy scenario. 
In fact, my work with BHP on scenario analysis and disclosure issues, 
among others, was foundational to my decision to form a bipartisan 
energy and environment consultancy, The Coefficient Group.

    Question 33. Will you commit to staffing the ENR bureau with 
professional staff at all levels with diverse experience, expertise and 
background to ensure ENR remains effective in delivering in all areas 
of the Bureau's ``all of the above'' approach to energy diplomacy.

    Answer. I take issues of diversity and inclusion very seriously, 
which have been shaped by my personal and professional experience. As I 
indicated in my opening statement, my mother and her family immigrated 
to the United States in 1969 with little more than an aspiration for a 
better life. I saw firsthand the importance of inclusion of diverse 
nationalities and ethnicities. Professionally, I have worked with 
diverse and multi-cultural teams to advance commercial ventures. I have 
a keen appreciation for the benefits that diversity in culture and 
perspective can bring to any endeavor.
    I believe in the importance of diversity in terms of cultures, 
genders and points of view. If confirmed, I commit to recruit the best 
experts to advance ENR's ``all of the above'' approach to energy 
diplomacy, and will seek to build and retain a diverse team and ensure 
that all are meaningfully included at all levels of the organization.

    Question 34. Executive Order 13770, ``Ethics Commitments by 
Executive Branch Appointees,'' requires every appointee so sign a 
pledge which states that they ``will not for a period of 2 years after 
the date of my appointment participate in any particular matter on 
which I lobbied within the 2 years before the date of my appointment or 
participate in the specific issue area in which that particular matter 
falls.''
    As a lobbyist for BHP Billiton, you submitted disclosures that 
state the specific issue areas you lobbied on over the past two years. 
Many of these specific issue areas appear to fall within the scope of 
work for the position to which you have been nominated. At our meeting 
in my office and at your nomination hearing, you said that State 
Department ethics lawyers were going to ``carve out'' these issue 
areas.
    Listed below are some of the relevant specific issue areas that you 
lobbied on over the past two years. For each one, please explain how 
the specific issue area does not apply to the work of the ENR Bureau 
or, if it does, how the State Department will create ``carve outs'' 
that would allow you to fulfill the full scope of responsibilities for 
this position without having to recuse yourself from any matter or seek 
a waiver for EO 13770.

          34a. Issues related to methane emissions (no bill)

    Answer. This matter related to BHP's participation in ``One 
Future,'' an industry group comprised of companies throughout the 
natural gas value chain committed to reduce their methane emissions to 
a collective ``one percent.'' BHP supported One Future's mission and 
sought to promote voluntary methane emissions reductions with U.S. EPA.
    One Future is a domestic U.S. organization and EPA's proposed 
methane emissions programs were wholly domestic. As such, this is not a 
particular matter or specific issue area that I would anticipate 
working on as Assistant Secretary for the Energy Resources Bureau if I 
am confirmed.

          34b. Issues related to climate change (no bill)

    Answer. BHP has agreed with the United Nations' views on climate 
change and IPCC reports since the early 2000s. The company has shared 
its views consistently since that time.
    I supported BHP's public roll-out of its report, ``Climate Change: 
Portfolio Analysis'' and subsequent, ``Climate Change: Portfolio 
Analysis Views After Paris.''
    If confirmed, I will follow the directions of Ethics counsel and 
will adhere to my ethics pledge, which requires a recusal from 
particular matters in which BHP is a party. Further, the roll-out of 
BHP's Climate Change reports did not involve the Energy Resources 
Bureau, and I would not expect any promotion of those reports before 
the Energy Resources Bureau in the future.

          34c. Issues related to climate change, including carbon 
        capture sequestration, conservation, and general climate change 
        policies (no bill)

    Answer. BHP has agreed with the United Nations' views on climate 
change and IPCC reports since the early 2000s. The company has shared 
its views consistently since that time.
    I supported BHP's public roll-out of its report, ``Climate Change: 
Portfolio Analysis'' and subsequent, ``Climate Change: Portfolio 
Analysis Views After Paris.'' This included sharing the report with 
officials during the former administration.
    BHP signed a partnership agreement with Beijing-based, Peking 
University to research potential application for carbon capture 
utilization and storage in the steelmaking process. I supported the 
company's public roll-out of this initiative. This included sharing 
notification of this initiative with officials during the former 
administration.
    If confirmed, I will follow the directions of Ethics counsel and 
will adhere to my ethics pledge, which requires a recusal from matters 
in which BHP is a party. Further, neither the roll-out of BHP's Climate 
Change reports nor the partnership with Peking University involved the 
Energy Resources Bureau, and I would not expect those matters to come 
before the Energy Resources Bureau in the future.

          34d. Financial transparency issues (no bill)

    Answer. BHP supported U.S. adoption of mandatory disclosure of 
extractive industry payments to governments. This included BHP's 
support of section 1504 of the Wall Street Reform and Consumer 
Protection Act. As noted, this matter concerned SEC regulations, and 
BHP's work on this issue does not relate to the Bureau of Energy 
Resources,
    If confirmed, I will follow the directions of Ethics counsel and 
will adhere to my ethics pledge, which requires a recusal from matters 
in which BHP is a party.

          34e. Extractives Industry Transparency Initiative (no bill)

    Answer. I was listed along with BHP's other registered lobbyist on 
all filings as a routine matter, rather than removing me and putting me 
back on LDA filings. BHP supported U.S. adoption of EITI. However, 
BHP's other lobbyist worked on the U.S. EITI issues.
    The Department of Interior noticed its withdrawal from U.S. 
participation of EITI in light of legal privacy restrictions and low 
participation rates. In light of this withdrawal and that I did not 
work on the issue, there is no prospect of triggering Executive Order 
13770's restrictions related to past lobbying if I am confirmed.

          34f. Issues related to climate change policy, including 
        carbon capture and sequestration and voluntary methane 
        reductions (no bill)

    Answer. BHP has agreed with the United Nations' views on climate 
change and IPCC reports since the early 2000s. The company has shared 
its views consistently since that time.
    I supported BHP's public roll-out of its report, ``Climate Change: 
Portfolio Analysis'' and subsequent, ``Climate Change: Portfolio 
Analysis Views After Paris.'' This included sharing the report with 
officials during the former administration.
    BHP signed a partnership agreement with Beijing-based, Peking 
University to research potential application for carbon capture 
utilization and storage in the steelmaking process. I supported the 
company's public roll-out of this initiative. This included sharing 
notification of this initiative with officials during the former 
administration.
    Additionally, BHP participated in ``One Future,'' an industry group 
comprised of companies throughout the natural gas value chain committed 
to reduce their methane emissions to a collective ``one percent.'' BHP 
supported One Future's mission and sought to promote voluntary methane 
emissions reductions with U.S. EPA.
    One Future is a domestic U.S. organization and EPA's proposed 
methane emissions programs were wholly domestic.
    If confirmed, I will follow the directions of Ethics counsel and 
will adhere to my ethics pledge, which requires a recusal from matters 
in which BHP is a party. Further, neither the roll-out of BHP's Climate 
Change reports, the partnership with Peking University, nor One Future 
initiative involved the Energy Resources Bureau, and I would not expect 
those matters to come before the Energy Resources Bureau in the future.

          34g. Issues related to NAFTA renegotiation

    Answer. BHP won the right to develop the Trion field with partner 
PEMEX in Mexico's offshore leasing. BHP was interested in understanding 
how NAFTA renegotiations could affect the development of that 
discovered resource.
    BHP's inquiries did not involve the Bureau of Energy Resources. 
Further, if confirmed, I will follow the directions of Ethics counsel 
and will adhere to my ethics pledge, which requires a recusal from BHP.

          34h. Issues related to energy policy priorities

    Answer. BHP has shale resources across four regions in three U.S. 
states. ``Energy policy priorities'' relates to BHP's interest in 
better understanding the direction of the U.S. Government policy 
priorities that could affect its production profile.
    BHP's inquiries, which focused on domestic policy, did not involve 
the Bureau of Energy Resources. Further, if confirmed, I will follow 
the directions of Ethics counsel and will adhere to my ethics pledge, 
which requires a recusal from BHP.

          34i. Issues related to energy security (no bill)

    Answer. Two BHP executives visited Washington from Australia. I was 
listed, along with my other former BHP registered lobbyist colleague 
because we supported them in preparation for their trip. Neither of us 
participated in the meeting that this filing references.
    Neither my own work nor the White House meeting that I did not 
attend involved matters before the Bureau of Energy Resources. Further, 
if confirmed, I will follow the directions of Ethics counsel and will 
adhere to my ethics pledge, which requires a recusal from BHP.

          34j. Issues related to climate change policy, including the 
        Paris accords and carbon capture and sequestration technology 
        and funding (no bill)

    Answer. BHP has agreed with the United Nations' views on climate 
change and IPCC reports since the early 2000s. The company has shared 
its views consistently since that time.
    I supported BHP's public roll-out of its report, ``Climate Change: 
Portfolio Analysis'' and subsequent, ``Climate Change: Portfolio 
Analysis Views After Paris.'' This included sharing the report with 
officials during the former administration.
    BHP signed a partnership agreement with Beijing-based, Peking 
University to research potential application for carbon capture 
utilization and storage in the steelmaking process. I supported the 
company's public roll-out of this initiative. This included sharing 
notification of this initiative with officials during the former 
administration.
    If confirmed, I will follow the directions of Ethics counsel and 
will adhere to my ethics pledge, which requires a recusal from matters 
in which BHP is a party. Further, neither the roll-out of BHP's Climate 
Change reports nor the partnership with Peking University involved the 
Energy Resources Bureau, and I would not expect those matters to come 
before the Energy Resources Bureau in the future.

          34k. Issues related to global commodities trade policy (no 
        legislation or trade agreement discussed)

    Answer. As the world's largest diversified resources company, BHP 
closely monitors and conducts various scenario analyses on the demand 
for various commodities.
    I supported BHP in sharing their views with officials serving 
during the former administration. This effort to share views with 
administration officials did not involve the Bureau of Energy 
Resources.
    If confirmed, I will follow the directions of Ethics counsel and 
will adhere to my ethics pledge, which requires a recusal from BHP.

    Question 35. While working for Murphy Oil, what specifically did 
you lobby on regarding ``all provisions relating to the regulation of 
retail tobacco sales'' in the Family Prevention and Tobacco Control 
Act? Did you lobby to weaken the bill in any way, including with regard 
to warning labels on tobacco products?

    Answer. At the time in 2008, Murphy Oil Corporation owned and 
operated a network of retail fueling stations. Murphy's retail business 
was a member of the National Association of Convenience Stores (NACS). 
As a NACS member, Murphy's retail business participated in NACS-related 
advocacy programs. NACS sought what it contended were practical and 
fair changes to the proposed legislation. The House Energy & Commerce 
agreed to modify their bill and President Obama signed the legislation 
into law.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Francis R. Fannon by Senator John Barrasso

    Question 1. Have you read the Inspector General's report?

    Answer. Yes.

    Question 2. What specific steps would you take to deal with the 
duplication, redundancies, and confusing lines of authorities on 
international energy policy that are outlined in that report?

    Answer. The U.S. Constitution empowers the President with authority 
to ``make treaties'' with advice and consent of the Senate. In 
establishing the Department of State in 1789, Congress provided that 
``[t]he The Secretary of State shall perform such duties . respecting 
foreign affairs as the President of the United States shall assign to 
the Department, and he shall conduct the business of the Department in 
such manner as the President shall direct.''
    In establishing the Department of Energy in 1977, Congress provided 
that ``the Secretary of State shall continue to exercise primary 
authority for the conduct of foreign policy relating to energy and 
nuclear nonproliferation.'' Although the Department of State has 
primary authority on foreign policy, it has coordinated and 
collaborated with respective experts across the cabinet in the interest 
of the American people.
    For example, the Department broadly, and the Bureau of Energy 
Resources more specifically has a strong history of meaningful and 
effective collaboration. For example, ENR worked closely with the 
Department of Defense (DoD) and the intelligence community to identify 
key energy infrastructure in Syria, allowing DoD to target and degrade 
ISIS' ability to produce and sell oil, thereby eliminating a key 
revenue source for the terrorist organization. ENR also collaborates 
with the Department of Treasury in the design and implementation of 
energy-related sanctions on Russia and North Korea.
    The Office of Inspector General report raised legitimate concerns 
over ``Interagency Coordination'' between DoE and State. However, the 
report did not provide specific recommendations for improvement on this 
matter as the OIG did in multiple other instances. This fact, coupled 
with the report itself as well as my own understanding, suggests that 
concerns raised reflected management failures.
    If confirmed, I intend to meet regularly with respective peers 
across the interagency and Departments of Defense and Treasury, in 
particular to better understand their processes for collaboration. I 
will also meet with DoE leaders, many of whom I have known and worked 
with beginning in 2001, and seek to build on the established best 
practice working across the interagency. There is absolutely no reason 
that the Department of State cannot work collaboratively to advance 
American foreign policy objectives as it does elsewhere across the 
interagency. I take seriously the responsibilities before me, and if 
confirmed, pledge to advance ``foreign policy relating to energy'' ``in 
such manner as the President shall direct.'' This necessarily requires 
working with all parties to advance American interests.

    Question 3. What efforts has the administration taken to 
effectively demonstrate that the United States opposes Nord Stream II?

    Answer. I understand that the administration has taken a very 
active approach to convey its clear opposition to the proposed Nord 
Stream II pipeline through public statements and private diplomatic 
engagement. Secretary Tillerson publicly affirmed in Warsaw on January 
29 that, ``the United States opposes the Nord Stream 2 pipeline. We see 
it as undermining Europe's overall energy security and stability, and 
it provides Russia yet another tool to politicize energy..'' The 
Secretary went on to state, ``Nord Stream II would continue to keep 
Europe more dependent on Russia for natural gas.[and].it also allows 
Russia to now use the natural gas supply system as a political tool to 
create more pressure on countries like Ukraine and elsewhere.'' 
Secretary Tillerson stated earlier, at the Wilson Center in Washington 
in November 2017, ``we continue to view the development of pipelines 
like the Nord Stream II and the multiline TurkStream as unwise, as they 
only increase market dominance from a single supplier to Europe.''
    Other Senior State Department officials as well as other federal 
agencies have affirmed this position publicly at home and abroad. I 
understand that the Department has also engaged in vigorous private 
multilateral and bilateral diplomatic engagement with a wide range of 
European counterparts and private sector officials.

    Question 4. Do you support imposing sanctions on Russian energy 
export pipelines, like Nord Stream II?

    Answer. Sanctions on Russian energy export pipelines, in accordance 
with CAATSA Section 232, can be a powerful tool to change the behavior 
of the Russian Federation. Proponents of the Nord Stream II pipeline 
have stated publicly that the existence of these sanctions has 
increased project financing costs for Nord Stream II. I cannot 
speculate on potential future sanctions actions; however, I would 
consider supporting the imposition of sanctions on Russian energy 
export pipelines, consistent with the public guidance issued by 
Secretary Tillerson on CAATSA Section 232. Any decision to implement 
such sanctions should be coordinated with our European allies, as 
envisioned by the law, in order to preserve trans-Atlantic unity on 
Russia sanctions.

    Question 5. If confirmed, how will you assist U.S. businesses and 
industries in gaining greater access to global markets?

    Answer. In support of the National Security Strategy, I will ensure 
the Bureau of Energy Resources (ENR) advocates for an open, 
transparent, and market-based global energy sector that advances U.S. 
economic interests. I will also lead Bureau efforts to promote exports 
of U.S. energy resources, including coal, to strengthen global energy 
security and to help our allies and partners become more resilient 
against those that use energy to coerce.
    ENR has a meaningful role to play to help level the playing field 
and open markets. Currently several geologically abundant countries may 
present prohibitive above ground risk profiles. As I noted in my 
opening statement, if confirmed, I will seek to focus ENR's work on 
governance and transparency to open markets for U.S. interests.
    If confirmed, I will also advocate for U.S. energy firms to gain 
greater access to global markets to sustain U.S. economic growth and 
job creation.

    Question 6. If confirmed, would you ensure that the State 
Department is promoting all forms of energy projects across the globe, 
including oil, gas, and coal?

    Answer. I believe that maintaining market access for U.S. energy 
resources, technologies, and services, and ensuring sustainable, 
transparent, and open international energy markets for our partners and 
ourselves is crucial to our economic and energy security. I fully 
support an ``all of the above'' approach and recognize that advocating 
for the full range of energy sources allows the United States to 
advance a diversified energy supply across multiple global contexts. It 
is not our job to pick winners and losers.
    During my confirmation hearing, Foreign Relations committee Ranking 
Member Menendez asked my views on a related topic. I offered that it 
was my understanding that ENR is fuel source ``agnostic,'' and that 
``it's truly an all-of-the-above approach . . . And so it wouldn't be a 
weighted measure of one fuel source over another.''
    If confirmed, I will seek to promote a secure, stable, diversified, 
and modern global energy system that uses a broad range of market-based 
energy solutions including advanced energy technologies, coal, oil, 
natural gas, renewable energy, energy efficiency, and energy governance 
solutions to advance U.S. interests, promote global energy security, 
and drive economic development.

    Question 7. With billions of people without power, do you believe 
we should be promoting fossil fuels that are affordable and reliable, 
such as coal and natural gas, while supporting new technologies that 
reduce their carbon output?

    Answer. Promoting universal access to affordable and reliable 
energy using an ``all of the above'' approach promotes energy security 
and economic growth for the United States and our partners and allies. 
In response to Foreign Relations committee Ranking Member Menendez 
during my confirmation hearing I stated that it was my understanding 
that ENR is fuel source ``agnostic,'' and that ``it's truly an all-of-
the-above approach ... And so it wouldn't be a weighted measure of one 
fuel source over another.''
    If confirmed, I will work closely with the interagency, industry 
representatives, international organizations, and partner countries to 
help communities around the world access and use fossil fuels more 
cleanly and efficiently and also to deploy renewable and other clean 
energy sources in line with a market-based approach. Related laws and 
regulations should be performance-based and technology neutral. If 
confirmed, I would also seek to support the transformation of 
electricity markets around the globe, helping to develop transparent 
and competitive market mechanisms to facilitate the most efficient 
choice of power supply.



                               __________


     Responses to Additional Questions for the Record Submitted to
            Francis R. Fannon by Senator Benjamin L. Cardin

    Question 1. What will you do to promote, mentor and support your 
staff who come from diverse backgrounds and underrepresented groups in 
the Civil and Foreign Service?

   What steps will you take to ensure your supervisors are fostering 
        an environment that is diverse and inclusive?

    Answer. I take issues of diversity and inclusion very seriously, 
which have been shaped by my personal and professional experience. As I 
indicated in my opening statement, my mother and her family immigrated 
to the United States in 1969 with little more than an aspiration for a 
better life. I saw firsthand the importance of inclusion of diverse 
nationalities and ethnicities. Professionally, I have worked with 
diverse and multi-cultural teams to advance commercial ventures. I have 
a keen appreciation for the benefits that diversity in culture and 
perspective can bring to any endeavor.
    If confirmed, I will seek to build and retain a diverse team and 
ensure that all are meaningfully included at all levels of the 
organization. In my view, the State Department would be a natural 
leader in demonstrating diversity and inclusion given its global 
mandate.

    Question 2. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 3. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 4. Do you or do any members of your immediate family have 
any financial interests in the energy sector?

    Answer. Yes. I am committed to ensuring that my official actions 
will not give rise to a conflict of interest. I will divest my 
interests in those companies the State Department Ethics Office deemed 
necessary to avoid a conflict of interest, and will remain vigilant 
with regard to my ethics obligations.

    Question 5. Does Russia represent a serious threat to European 
stability and prosperity?

    Answer. Yes, Russia represents a serious threat to European 
stability and prosperity. Its occupation and attempted annexation of 
Crimea in 2014, as well as its aggression in eastern Ukraine, 
demonstrate a lack of respect for the rules-based order that has 
ensured Europe's peace and prosperity since the end of World War II.
    Russia uses its energy resources to advance its geopolitical goals 
in Europe. Overdependence on a sole supplier of energy creates leverage 
for politicizing these vital resources. Russia demonstrated its 
willingness to use this leverage to achieve its geopolitical objectives 
when it disrupted gas supply to and through Ukraine in 2006, 2009, and 
2014, harming Ukraine and other Eastern European countries. Europe's 
diversification of fuel energy sources, types, and routes is critical 
to reducing Russia's leverage and ensuring Europe's continued stability 
and prosperity.

    Question 6. Do you agree that Russia/Gazprom manipulates European 
gas markets because Russia prioritizes the strategic and geopolitical 
value of its gas resources over revenue generation?

    Answer. Russia has demonstrated its willingness to leverage its 
role as Europe's single largest supplier of natural gas for strategic 
and geopolitical ends, notwithstanding its dependence on hydrocarbon 
exports for a significant portion of its state budget.
    Russia/Gazprom's decision to invest billions in the Nord Stream II 
and Turkish Stream projects in order to bypass Ukraine as a gas transit 
state, deprive Ukraine of gas transit revenue, and sever a vital link 
to the European Union is a clear example of prioritizing strategic ends 
over market rationale. Its willingness to prioritize geopolitical 
leverage over revenue generation by disrupting gas supply to and 
through Ukraine in 2006, 2009, and 2014, which harmed Ukraine and other 
Eastern European countries, serves as another example.

    Question 7. How would you characterize Russian interference in the 
Krk Island project?

    Answer. Russia uses a number of overt and covert approaches to 
influence public opinion and the policies of other governments. Russian 
disinformation campaigns aim to discredit energy infrastructure 
projects in Eastern and Central Europe and preserve Russia's dominant 
market position. Russia then uses its dominant market position to 
advance its own projects and further Russia's geopolitical goals in 
Europe.
    As with other energy diversification projects in the region, Russia 
has attempted to use economic tools such as contract terms and 
unrealistic promises of investments and ancillary projects to undermine 
commitments both in Croatia and in Hungary, the two markets key to 
determining the Krk project's viability. Russia offers tantalizing 
projects to maintain its dominant position in vulnerable markets such 
as a multiline TurkStream, to undercut other proposals that would 
promote real diversification.

    Question 8. What specific steps will you take to counter Russian 
efforts to oppose to Krk?

    Answer. If confirmed, I will focus Bureau of Energy Resources 
(ENR)'s diplomatic efforts on encouraging Croatia and regional partners 
such as Hungary to move forward with the deployment of an offshore 
Floating Storage and Regasification Unit (FSRU) at Croatia's Krk 
Island. We will continue to highlight the importance and benefits of 
diversification and emphasize the need for countries to invest in their 
own energy security. The United States also plans to provide technical 
assistance to support this project consistent with U.S. support of 
projects that advance energy security through energy diversification.
    I understand and support the administration's ongoing, 
comprehensive approach to countering Russian malign influence in the 
region. This work focuses on responding to Russian disinformation and 
propaganda, exposing Russian influence operations as such, building 
resilience in partner governments and populations, countering 
corruption, building the capacity of an independent news media, 
developing information-sharing mechanisms with partner nations, and 
increasing the cost of these destabilizing activities on those that 
carry them out.

    Question 9. Because of Russia's strategic imperative behind its gas 
supplies and deliveries, do you believe promoting U.S. gas exports to 
Europe will solve this problem?

    Answer. U.S. gas exports can be one element of a multi-faceted 
response to reduce the leverage Russia holds over Europe through energy 
supplies. U.S. gas exports will increase the supply of gas available 
for purchase worldwide, contributing to a global, liquid market for 
natural gas, all of which supports Europe's efforts to diversify its 
sources, supplies, and routes for gas. However, Europe itself must play 
the central role in reducing Russia's energy leverage over the 
continent. Through infrastructure investments, including LNG terminals 
and gas interconnectors, and the creation and implementation of robust 
legal and regulatory regimes, like the Third Energy Package, Europe can 
ensure that Russian firms are compelled to adhere to market principles.

    Question 10. Do you think U.S. gas suppliers are willing to supply 
gas, at a potential loss, if Russia effectively drives down the price 
of gas in Europe's regional markets?

    Answer. ENR and our interagency colleagues advocate for European 
energy security, including access to U.S. liquefied natural gas (LNG). 
However, the U.S. Government does not direct our private companies 
regarding where to sell their products and, likewise, does not set 
prices. U.S. private sector companies operate according to their own 
commercial terms in the best interest of their shareholders. As such, 
it is unlikely that they would supply gas to Europe at a loss in the 
long-term. The United States and U.S. firms contribute to global energy 
security through their demonstrated respect for and advancement of 
market principles and increased natural gas supplies and build a 
global, liquid and transparent market.
    European Union efforts to increase its own energy security by 
diversifying its energy mix have served to reduce Russia's market 
dominance and ability to set prices. Gazprom/Russia flourishes in 
opaque systems where it can exploit prospective importing countries 
through unfair and manipulative practices. By contrast, increased 
access to LNG and new energy distribution channels and sources 
introduces market competition that will force Gazprom to compete in a 
more open, rules-based marketplace. For example, Lithuania 
substantially reduced its dependence on Russian gas after it opened an 
LNG import facility in 2014. As a result of Lithuania's newfound market 
leverage, Gazprom reduced the price of Lithuania's 2005-2015 supply 
contract by 20 percent.

    Question 11. What would your strategy be to ``promote an increase 
in U.S. energy exports,'' as described in Performance Goal 2.3.1 in the 
State and USAID Joint Strategic Plan, where regional prices for certain 
energy products is especially challenging for certain U.S. energy 
product suppliers, or when the price of energy commodities depresses 
demand for those commodities produced in the U.S.?

    Answer. A strategy to promote an increase in U.S. energy exports 
includes identifying infrastructure and energy sector opportunities 
overseas for U.S. companies, facilitating rigorous and efficient 
permitting of safe and efficient cross-border infrastructure, and 
advocating for U.S. companies entering new markets. The strategy 
presumes working with multilateral, foreign and domestic energy 
stakeholders to strengthen good governance, increase transparency, and 
remove barriers to energy development and trade for U.S. companies. 
Finally, it would include providing technical assistance, sharing of 
U.S. best practices, and communicating opportunities and risks to 
governments and industry to advance U.S. energy priorities and 
businesses.
    The Department of State can further grow export opportunities for 
U.S. energy technology and commodity exporters irrespective of 
commodity market fluctuations by opening new markets through the 
promotion of U.S. financial and business models to support the 
transformation of electricity markets. The flexibility and 
responsiveness of U.S. exporters, the cost efficiencies gained through 
technological advances in U.S. production, and the reliability of U.S. 
supply make the United States a preferred exporter. Technology and 
reliability also make the United States an attractive partner and 
supplier. If confirmed, I will work to maximize all of these levers to 
grow U.S. energy and energy technology exports.

    Question 12. Would you agree that a balanced, and multi-faceted, 
strategy to combat Russian energy influence in the region, that 
includes technical assistance on regulatory reforms and power 
generation and transmission capacity, financial assistance and 
facilitation of U.S. private sector investments in domestic energy 
resource mobilization, is necessary for success?

    Answer. A balanced approach is important to counter Russian energy 
influence in Europe. Russia uses its position as the largest natural 
gas supplier to Europe to apply pressure throughout the continent. 
Russian-backed gas pipelines such as Nord Stream II and a multi-line 
Turkish Stream seek to extend Russian market power in Europe and bypass 
Ukraine as an important transit country of Russian gas to Europe. If 
confirmed, I would continue to utilize diplomatic engagement and 
foreign assistance to support European goals to enhance security 
through diversification of energy type, source, and transit routes.

    Question 13. What position do you believe the U.S. should take on 
the Turkstream pipeline?

    Answer. Secretary Rex Tillerson stated in November 2017 that a 
multi-line Turkstream is ``unwise'' because it does not advance 
Europe's need for greater energy diversification. This is position is 
especially pronounced in the Balkans, where countries rely entirely or 
almost entirely on Russian gas imports.
    I understand that Russia supports a multiline Turkstream because it 
would enable Gazprom to reduce the volume of gas it would otherwise 
export to Europe through Ukraine. The first Turkish Stream pipeline, 
which I understand Turkey views as a national security priority, will 
have an annual capacity of 15.75 billion cubic meters (bcma) and will 
supply Istanbul. The second Turkish Stream pipeline would enable 
Gazprom to send a further 15.75 bcma to Europe without transiting 
Ukraine. Neither line would advance Turkey or Europe's energy 
diversification efforts but instead would lock-in their reliance on 
Russian gas volumes for years to come. Turkey and many of the Balkan 
countries are in challenging situations because Russia either is their 
chief or exclusive source of natural gas.
    I understand that the United States long has supported Europe and 
Turkey's energy diversification efforts as a key to strengthening their 
energy security and their broader national security. Russia has used 
Europe's dependence on its gas as a political weapon to undermine its 
security. The United States also recognizes that a country's reliance 
on a single source of energy supplies can make it vulnerable to 
disruptions and higher energy prices. The United States has a national 
security interest in seeing the Balkan countries and Turkey further 
develop their economies and pursue their European aspirations. If 
confirmed, I would support continued efforts in the Balkans and Turkey 
to advance energy diversification through projects like the Southern 
Gas Corridor, the Interconnector Greece-Bulgaria, the Interconnector 
Bulgaria-Serbia, and the Krk Island LNG import terminal in Croatia.

    Question 14. What will you do to support Europe's Third Energy 
Package, particularly in Eastern Europe?

    Answer. Implementation of the Third Energy Package is particularly 
important in Eastern Europe where many countries are dependent on 
Russian gas. Eastern European countries must play a central role in 
efforts to reduce Russia's energy leverage over the region by ensuring 
that all firms, including Russian firms, are compelled to adhere to 
market principles.
    If confirmed, I will continue to use diplomatic outreach to 
highlight the importance of an open and competitive energy market that 
allows for efficient production, transmission, and pricing while 
encouraging investment. This engagement should take place with the 
Energy Community, which includes the countries of the Western Balkans, 
Georgia, Moldova, and Ukraine, as well as with the 28 member states of 
the EU, all of which have committed to implementing the Third Energy 
Package. Further, if confirmed, I will work closely with our European 
partners and allies to encourage and support implementation of market 
liberalization rules and laws designed to ensure the proper functioning 
of Europe's energy market and to guarantee that all companies play by 
free market rules. We will encourage the EU to quickly pass and 
implement a pending amendment to the gas directive of the Third Energy 
Package in order to fully apply EU law to both offshore and onshore 
pipelines entering the EU.

    Question 15. What technical assistance and energy development 
assistance would you recommend the U.S. provide our allies and 
strategic partners in Europe to improve Domestic Energy Resource 
Mobilization as a means of achieving greater energy security?

    Answer. If confirmed, I would support assistance that helps to 
improve European allies' and partners' domestic energy security and 
diversifies their energy sources, supplies, and routes to advance 
regional energy security. Domestic resource mobilization is country-
specific and depends in part on the presence of energy resources, 
governments' policy priorities, technical and human resource capacity, 
and other domestic factors. If confirmed, I would also encourage my 
team to view foreign assistance for the development of domestic 
resources in Europe in a regional context that acknowledges existing 
market linkages. Dependence on a single supplier for energy imports 
leaves countries vulnerable to external pressure from countries that 
use energy as a geopolitical weapon.

    Question 16. Do you feel that climate change represents a threat to 
life on Earth?

    Answer. I believe that climate change is real and is a threat to 
the planet. To address this global challenge requires concerted action 
on a global scale to advance sound science, accelerate technological 
and commercial innovation, and establish legal and regulatory systems 
that promote sustainable economic and environmental outcomes.

    Question 17. Do you believe it is appropriate and necessary for the 
U.S. Government to take some form of action to reduce U.S. carbon 
pollution?

    Answer. I fully support the administration's policy of a balanced 
approach to climate change mitigation, economic development, and energy 
security that takes into consideration the realities of the global 
energy mix. It is important to note that the U.S. has successfully 
delinked GHG emissions from economic growth. From 2005 to 2015, the 
U.S. economy grew by 15 percent while net GHGs decreased by more than 
11 percent. This is an American success story that, if confirmed, I 
will promote around the world.
    The National Security Strategy also recognized climate change and 
the importance of maintaining U.S. involvement and leadership. Page 22 
provides, ``Climate policies will continue to shape the global energy 
systems. The U.S. will continue to advance an approach that balances 
energy security, economic development, and environmental protection. 
The U.S. will remain a global leader in reducing traditional pollution, 
as well as greenhouse gases while expanding our economy.''
    Although climate change as an issue falls outside the Energy 
Bureau's remit, if confirmed, I will work to promote energy innovation, 
including in sustainable and clean energy and energy efficiency, and 
support for low greenhouse gas emissions energy systems.

    Question 18. Do you share the opinions of Sec. Mattis, Sec. Powell, 
and Sec. Hagel that climate change represents a serious national 
security threat to the U.S.?

    Answer. I defer to the National Security Council and leadership 
teams at the Departments State and Defense to comment on specific 
threats to the national security of the United States. However, I would 
also note that Director of National Intelligence Dan Coats, in his 
Statement for the Record on the Annual Threat Assessment stated that: 
``The impacts of the long-term trends towards a warming climate, more 
air pollution, biodiversity loss, and water scarcity are likely to fuel 
economic and social discontent--and possibly upheaval--through 2018.''

    Question 19. In response to Sen. Young's question to you at your 
hearing where he stated: ``my inference would be that you'd also agree 
that energy security is a necessary and important part of our national 
security. do you agree that the actions and priorities of the Bureau of 
Energy and Natural [sic] Resources can be optimized if they're carried 
out in support of a written strategic plan for the bureau?'' you 
answered: ``I think that I would just point out that the foundation 
would be the National Security Strategy which speaks to this very 
issue.''

   Are you aware that the National Security Strategy no longer 
        includes any references to climate change?

    Answer. Innovation and technological progress are the key to 
reducing the production of greenhouse gases and its impact on climate. 
It is important to note that the on page 22 the NSS provides, ``Climate 
policies will continue to shape the global energy systems. . The U.S. 
will continue to advance an approach that balances energy security, 
economic development, and environmental protection. The U.S. will 
remain a global leader in reducing traditional pollution, as well as 
greenhouse gases while expanding our economy.''Although, climate change 
falls outside the remit of the Energy Bureau, if confirmed, I will work 
to open markets and remove barriers to energy development and trade, 
providing access and a level-playing field for American companies so 
that they can pursue innovation and technological advances in the 
global energy market.

    Question 20. Given your commitment to provide Sen. Young with a 
written strategic plan for the Bureau, can you commit to me that the 
Bureau's strategic plan will account for the nexus climate change world 
energy production, the global security risks' associated with the 
effects of climate change?

    Answer. If confirmed, I will ensure the ENR strategy remains 
consistent with the administration's climate policy and the commitment 
in the National Security Strategy ``to advance an approach that 
balances energy security, economic development, and environmental 
protection'' and supports U.S. global leadership in ``reducing 
traditional pollution, as well as greenhouse gases, while expanding the 
U.S. economy.'' The Bureau of Oceans and International Environmental 
and Scientific Affairs (OES) leads the State Department on developing 
international climate policy and manages strategic bilateral and 
multilateral partnerships on climate change. I commit that, if 
confirmed, I will work closely with OES and partners across the 
interagency to ensure the work of the Energy Bureau supports the 
administration's climate policy and advances the U.S. position at the 
center of the global energy system as a leading producer, consumer, and 
innovator.

    Question 21. The President's FY19 Budget proposal's very deliberate 
elimination or reduction of funds for nearly all programs to address 
climate change is a clear demonstration of political hostility to U.S. 
action to address climate change and clean energy programs.

   Are you prepared to and willing to pushback against any political 
        agenda that is antithetical towards addressing climate change 
        or supporting the advancement of clean energy within the ENR 
        bureau's programs?

    Answer. Over the past 10 years, the United States has shown that it 
can reduce emissions while expanding the economy and promoting energy 
security. Since 2005, the United States' net greenhouse gas emissions 
have decreased 11.5 percent while the U.S. economy has grown 15 
percent, adjusted for inflation. A large portion of these reductions 
have come as a result of the adoption by the private sector of 
innovative energy technologies, especially in the energy sector.
    Collaborative U.S. public and private efforts over the past 10 
years have resulted in dramatic decreases in the cost of low-emissions 
technologies and fuels, including natural gas, solar, wind, energy 
storage, and energy efficiency. Natural gas prices have dropped to 
about a third of what they were in 2007 and the cost of utility-scale 
solar PV has dropped by more than 64 percent. These are all American 
success stories that, if confirmed, I would seek to promote around the 
world.
    If confirmed, I will work with other countries to continue 
advancing innovation in the development and deployment of a broad array 
of technologies that will ultimately enable the United States to 
achieve our climate and energy security goals.

    Question 22. Can you commit that you will work to maintain, or 
defend, the ENR bureau's core objectives as it relates to advancing an 
``all of the above'' approach to energy diplomacy?

    Answer. I believe that maintaining market access for U.S. energy 
products, technologies and services, and ensuring sustainable, 
transparent, and predictable international energy markets for our 
partners and ourselves is crucial to our security. I fully support the 
``all of the above'' approach and recognize that advocating for the 
full range of energy sources allows the United States to advance a 
diversified energy supply across multiple global contexts. If 
confirmed, I will seek to advance secure, stable, diversified, and 
modern global energy systems that uses a broad range of market-based 
energy solutions, irrespective of fuel type, and will pursue a range of 
governance solutions to advance U.S. interests, promote global energy 
security, and drive economic development.

    Question 23. Given the significance of climate diplomacy to the 
U.S.-China relationship, and the significant investment that China is 
making at home and abroad in renewable energy development, will you 
work to restore the climate cooperation dialogue between the U.S. and 
China--a former cornerstone of the U.S.-China relationship?

    Answer. My understanding is that the Bureau of Energy Resources 
(ENR) leads the Department's efforts to forge international energy 
policy, strengthen U.S. and global energy security, and respond to 
energy challenges from around the world that affect U.S. economic and 
national security. The Bureau of Oceans and International Environmental 
and Scientific Affairs (OES) leads the Department on developing 
international climate policy and manages strategic bilateral and 
multilateral climate change partnerships. Therefore, if confirmed, I 
would look to OES and the China team within the Bureau of East Asian 
and Pacific Affairs to consider the appropriate evolution of the U.S.-
China Climate Change Working Group, consistent with the 
administration's climate policy.
    With that said, given the U.S. position as a leader in the global 
energy system, I recognize the importance of maintaining a constructive 
and results-oriented relationship with China, as the U.S. will remain a 
critical force in advancing energy efficiency and clean energy efforts 
around the world as demand for energy increases.

    Question 24. How will you work to promote transparency and 
accountability in global energy development?

    Answer. If confirmed, I would pursue several avenues to promote 
transparency and accountability in global energy development. I would 
raise these issues in bilateral and multilateral energy security 
dialogues that ENR collaborates on with many of our global partners. I 
would also continue ENR's efforts to strengthen energy sector 
governance, access, and reliability in emerging economies to build the 
capacity of governments to develop and utilize their energy resources 
for long-term national benefit. I understand that ENR's programs 
support transparency and accountability objectives by: 1) building 
institutional and human resource capacity in emerging economies needed 
to ensure strong energy sector governance and transparency in the 
resource sectors; 2) providing governments and civil society with the 
tools needed to help support responsible development of domestic 
resources; and 3) supporting power market reforms and efforts to 
leverage regional electrical interconnections, to strengthen energy 
security, and advance regional cooperation.
    Moreover, I would work with USAID colleagues to ensure transparency 
and accountability are key pillars in our assistance, while also 
working together to seek new opportunities to underscore the need for 
transparency and accountability in our energy assistance work.

    Question 25. Are you committed to working with foreign governments 
to develop adequate accountability policies, and to fight corruption 
between foreign governments and U.S. and international energy 
developers operating around the world?

    Answer. If confirmed, I will work bilaterally with foreign 
governments and engage in multilateral fora to promote transparency 
abroad, improve energy resource governance, and reduce corruption. 
Further, I will continue ENR's efforts to work with countries around 
the world to improve hydrocarbon and mineral sector governance and 
oversight and pursue universal access to affordable and reliable energy 
supply through power sector reform and development.
    If confirmed I would also continue the Department of State and 
USAID's work with partner countries to prevent corruption before it 
starts and to strengthen detection and enforcement efforts, including 
encouraging countries to meet multilateral standards and political 
commitments.

    Question 26. As an adviser to the Secretary of State, will you 
advocate for the development of robust replacement rule governing the 
implement of Sec. 1504 of the Dodd-Frank Wall Street Reform and 
Consumer Protection Act (PL 111-203)?

    Answer. Section 1504 remains United States law. Writing, 
promulgating, and implementing regulation is the purview of the 
Securities and Exchange Commission (SEC). I understand that the 
Securities and Exchange Commission is in the process of promulgating a 
replacement rule to implement Section 1504. If confirmed, I will 
strongly advocate for robust transparency and governance programs 
globally, as it is a critical means to advance U.S. liberal democratic 
values, is foundational to free markets, and provides prerequisite 
conditions for U.S. private sector investment.

    Question 27. What role do democratic institutions and citizen-
responsive governments play in the development of foreign countries' 
energy resources?

    Answer. Strong democratic institutions, citizen engagement, and a 
free press are vitally important to the successful development of 
extractive resources. Revenue transparency of a country's energy and 
natural resources fosters government accountability by providing 
citizens a window into government budgets, helps citizens hold their 
leadership accountable, and facilitates public debate.

     Responses to Additional Questions for the Record Submitted to
             Francis R. Fannon by Senator Edward J. Markey

    Question 1. China intends to spend more than 360 billion dollars 
through 2020 on renewable power sources like solar and wind. In 2017 
alone, China invested twice as much as the United States in clean 
energy, 86.5 billion dollars of which went to solar--more than half of 
the global market.
    Unfortunately, President Trumps' recent budget proposal will reduce 
our nation's ability to compete in global renewable energy markets. We 
know that government investment in renewable energy development and 
deployment is essential to the success of these industries.

   The Bureau of Energy and Natural Resources has long promoted an 
        ``all-of-the-above'' approach to energy diplomacy. What do you 
        think of that vision?

    Answer. I believe that maintaining market access for U.S. energy 
products, technologies and services, and ensuring sustainable, 
transparent, and predictable international energy markets for our 
partners and ourselves is crucial to our security. I fully support the 
``all of the above'' approach and recognize that advocating for the 
full range of energy sources allows the United States to advance a 
diversified energy supply across multiple global contexts. If 
confirmed, I will seek to advance secure, stable, diversified, and 
modern global energy systems that use a broad range of market-based 
energy solutions including advanced energy technologies, renewable 
energy, energy efficiency, and governance solutions to advance U.S. 
interests, global energy security, and economic development.

    Question 2. Do you think that renewable energy has an important 
role to play in energy diplomacy?

    Answer. I believe that it is important to promote energy supply 
diversity in terms of source and location. This necessarily includes 
renewable energy sources as means to support the energy security of the 
United States and our partners and allies while also advancing 
universal access to affordable and reliable energy. The Department of 
State's Bureau of Energy Resources (ENR) leads the Department's 
engagement with the International Renewable Energy Agency (IRENA) and 
actively participates in the organization's work program and 
development as a Council member. If confirmed, I will continue to 
advance ENR's work in coordination with USAID and other interagency 
partners to promote energy diversification, increased ac*cess to 
affordable and reliable energy, and to develop efficient and 
sustainable energy policies abroad through tech*nical assistance and 
public-private partnerships.

    Question 3. Can you commit to energy diplomacy that promotes 
renewable energy and energy efficiency? Can you pledge to applying 
time, budget, staffing, travel, and other resources at a level equal to 
those of other energy issues addressed at ENR?

    Answer. Advancing renewable energy and energy efficiency are key 
elements of an overall approach to promote diversified energy supply 
for the United States and our partners and allies. If confirmed, I will 
work to ensure that access to energy is diversified, in accordance with 
the National Security Strategy. I intend to devote appropriate staff 
resources, travel, and budget to support renewable energy and energy 
efficiency as elements of the overarching mission of advancing energy 
security and exports of U.S. energy resources, technologies and 
services.
    Improved energy efficiency represents an important component of 
energy security as it stabilizes grids, lessens dependence on unstable 
or nefarious foreign sources, increases energy access, and supports 
industrial growth. U.S. industry leads in energy efficiency. According 
to the 2017 U.S. Energy and Jobs Report, the U.S. energy efficiency 
market employs approximately 2.2 million people, including 290,000 
manufacturing jobs. If confirmed, I will advocate strongly for the 
adoption of U.S. business and finance models across the globe and open, 
transparent global energy markets in which U.S. companies can 
successfully compete.

    Question 4. Do you think Saudi Arabia has the solar resources to 
become a major producer of solar energy if it wanted to?

    Answer. Saudi Arabia has announced ambitious renewable energy 
targets as part of Saudi Vision 2030. The first test for Saudi Arabia's 
ability to reach these ambitious goals will come this year, as they 
have announced plans for $7 billion in renewable energy projects in 
2018, which will include 3.3 gigawatts of solar photovoltaic power as 
well as 800 megawatts of wind power.
    Saudi Arabia will have to balance the priorities laid out in their 
2030 vision between attracting private investment for renewable asset 
development against local content rules aimed at boosting their 
domestic economy. In this context, Saudi Arabia has potential to reach 
its domestic solar production goals with a balanced investment strategy 
and targeted technical exchange. If confirmed, I will work to ensure 
that U.S. energy-related engagement with Saudi Arabia reflects the 
administration's goals including the promotion of U.S. technological 
and financial solutions to reduce barriers for investment and ensuring 
energy security for the United States and our partners and allies.

                               __________
                               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

                              NOMINATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
presiding.
    Present: Senators Young, Risch, Gardner, Barrasso, Merkley, 
Cardin, Shaheen, Murphy, Kaine, and Booker.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Good afternoon. This hearing of the Senate 
Foreign Relations committee will come to order.
    I want to thank Senator Merkley for joining me to convene 
this hearing. I am grateful for our partnership on this and so 
many other issues.
    I also want to thank our distinguished nominees for being 
here.
    And I also want to thank Senator Cornyn, a good colleague 
from Texas, for being here.
    This afternoon, we will consider four nominees for 
positions that are important to this committee and to our 
country. We will divide today's hearings into two panels. The 
first panel will include two nominees.
    First is the Honorable Kevin Moley, who is nominated to be 
Assistant Secretary of State for International Organization 
Affairs. Ambassador Moley served as the representative of the 
United States to the Office of the United Nations and other 
international organizations in Geneva from 2001 to 2006. 
Ambassador Moley I would also like to note and thank you for 
your service in the United States Marine Corps to Iraq.
    The second nominee on the first panel is the Honorable 
Josephine Olsen, who is nominated to serve as the Director of 
the Peace Corps. Dr. Olsen has deep experience in the Peace 
Corps beginning in 1966 as a Peace Corps volunteer in Tunisia. 
She later served as Country Director, Regional Director, Chief 
of Staff, Deputy Director, and then Acting Director.
    I welcome both of you.
    Our second panel will also include two nominees.
    First will be Mr. Erik Bethel, who is nominated to be the 
United States Alternate Executive Director of the International 
Bank for Reconstruction and Development. Mr. Bethel has spent 
more than 2 decades in work related to finance and emerging 
markets. I would also note that Mr. Bethel is a proud fellow 
graduate of the United States Naval Academy.
    The second panel will also include Mr. Sean Cairncross, who 
is nominated to be the Chief Executive Officer of the 
Millennium Challenge Corporation, or MCC. Mr. Cairncross 
currently serves as a Deputy Assistant to the President and 
Senior Advisor to the Chief of Staff.
    With that, I would now like to call on Ranking Member 
Merkley for his opening remarks. Senator Merkley?

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman.
    I am pleased that we have these nominees here today for 
these four important international roles, and I hope that each 
of the individuals believes in the work of the bureau or agency 
that they have been nominated to lead.
    I have been disturbed by the Trump administration's 
proposed budgets which for 2 consecutive years have cut U.S. 
funding for diplomacy and development by over 30 percent. These 
organizations have a tremendous amount to offer.
    As leaders, you must know that stewardship and command 
responsibility are critically important. The professional men 
and women who serve in the bureaus and agencies are working 
very hard, advocating every day for Americans' interests and 
deserve excellent leadership that supports them, defends them, 
protects their work from political attacks.
    The roles that each of you have been nominated to serve 
represent some of the most important work our country 
undertakes in addressing pressing global challenges. Your 
leadership comes at a time when many have been disappointed in 
the de-emphasis of diplomacy and development under the current 
administration. When people around the world look at what truly 
makes America great, it is our belief that we can do well when 
others do well, where prosperity is complementary not a zero 
sum.
    As the United States emerged as a global leader in the 20th 
century, one of our proudest legacies was in helping to create 
the multilateral institutions that would provide a platform for 
nations to resolve conflict without resorting to bloodshed. The 
result has not always been perfect. It is sometimes hard to 
recognize what conflicts have been prevented. But much 
excellent work has been done and many conflicts have been 
prevented and much development has been promoted.
    The bureaus and agencies that our nominees are proposed to 
lead represent some of the many complementary ways that U.S. 
leadership engagement have evolved to meet the challenges we 
face in the 21st century.
    The Bureau of International Organization Affairs, or IO, is 
the nerve center for supporting U.S. engagement through all our 
United Nations missions and through other important 
multilateral forum.
    For more than 56 years, the Peace Corps has provided 
American citizens of all ages from all walks of life the 
opportunity serve abroad by providing their expertise to 
developing communities and sharing their experiences and 
passion with others when they return home.
    The International Bank for Reconstruction and Development 
is also critical. As a nation, we are justly proud that after 
World War II, the Marshall Plan helped rebuild Europe into a 
community of nations that have been among our most stalwart 
allies in meeting the challenges we face today. But even before 
the war was won, we worked with our allies to develop 
international financial agreements that would complement our 
political and military efforts to achieve and maintain peace, 
including the IBRD, which was set up to encourage international 
trade necessary to rebuild and reintegrate global markets.
    And finally, the Millennium Challenge Corporation, or MCC, 
a relatively new initiative started under George W. Bush. It 
has had a distinct track record of success complementing our 
broader aid and development policies and programs, operating as 
a new model for providing foreign aid for economic development 
based on partnerships with recipient countries, designed to use 
American aid as a catalyst rather than a substitute for local 
based economic development.
    I look forward to hearing from each of the witnesses about 
how they will ensure that America continues to lead on 
diplomacy and development.
    Senator Young. Well, thank you, Senator Merkley.
    In order to be respectful of my colleague's time, I would 
now invite Senator Cornyn to say any comments you would like, 
sir.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman and members 
of the committee. I appreciate your allowing me to be here 
today to recommend an extremely well qualified candidate, Sean 
Cairncross, to be the Chief Executive Officer of the Millennium 
Challenge Corporation. Sean, as you pointed out, Mr. Chairman, 
currently serves as the Deputy Assistant to the President of 
the United States, as well as a senior advisor to the 
President's Chief of Staff.
    Sean was my lawyer for an important period of time, and in 
that capacity I trusted him with my professional life, my 
reputation, and my future. And I do not know how much more I 
could say than that in terms of my confidence in him and I hope 
the confidence you will learn to have in him and his judgment.
    He was the Deputy Executive Director and General Counsel at 
the National Republican Senatorial committee for two cycles and 
represented me individually to make sure I complied with all 
applicable laws after he left that particular position.
    As I have hinted at, he is a man of great character and on 
numerous occasions has proven his ability to deftly respond to 
adversity and conflict.
    He is a man of many talents and wide-ranging interests. He 
is a lawyer by training, as I said, holding a J.D. from New 
York University, but he also has a master's Cambridge in 
international relations. And perhaps his most important 
qualification, he is a devoted husband and father of two 
wonderful children.
    I am sure his experience, his character, his training will 
prepare him well to serve in this new challenge. Obviously, the 
Millennium Challenge Corporation, as Senator Merkley said, has 
been an important part of our diplomatic efforts and support 
for developing countries. And I know this is a challenge that 
Sean looks forward to enthusiastically, and I have every 
confidence he will perform in a way that will make all of us 
proud and that will serve our country well.
    Thank you, Mr. Chairman.
    Senator Young. Well, thank you, Senator Cornyn, for your 
presence here today. You are welcome to stay if you like, but 
if you need to depart, I certainly understand that.
    With that, Ambassador Moley, I would welcome your opening 
statement, 5 minutes or less, please.

    STATEMENT OF HON. KEVIN EDWARD MOLEY, OF ARIZONA, TO BE 
   ASSISTANT SECRETARY OF STATE, INTERNATIONAL ORGANIZATION 
                            AFFAIRS

    Ambassador Moley. Chairman Young, Ranking Member, I am 
honored to be here today as the President's nominee to be 
Assistant Secretary of State for International Organizations.
    I would like to take this opportunity to thank my wife of 
48 years Dorothy. Unfortunately, she cannot be here, but I 
would not be here without her support, advice, patience, and 
above all, love.
    I would also like to thank two senior former career members 
of our Foreign Service who are here today in support of my 
nomination: Assistant Secretary of State Linda Thomas 
Greenfield, former Ambassador Greenfield to Liberia, and also 
former Director General of the Foreign Service; as well as 
Ambassador Jim Foley, who was our Ambassador to Haiti and later 
our Ambassador to Croatia and later still Deputy Commandant of 
the War College.
    I have been privileged and honored to have served my 
country in the administrations of three Presidents: during 
President Reagan's administration, in positions of increasing 
responsibility at HCFA, now CMS; in President Bush 41's 
administration, as Assistant Secretary of Management and Budget 
and later as the Deputy Secretary at the U.S. Department of 
Health and Human Services. In President Bush 43's 
administration, following 9/11, I was nominated to be U.S. 
Ambassador to the U.N. and other international organizations in 
Geneva. I was confirmed and served for 4 and a half years as 
Ambassador.
    Following my tenure as Ambassador, I served as Chairman of 
the Board of Project Concern International, a San Diego-based 
NGO doing development work in Latin America, Asia, and Africa. 
In that capacity, I traveled to Mexico, Guatemala, Tanzania, 
Zambia, and Ethiopia to observe and assist in PCI's mission. In 
Tanzania, Zambia, and Ethiopia, I met with our U.S. Ambassadors 
to solicit their views and advice.
    If confirmed, I would lead the Bureau of International 
Organization Affairs, which is the U.S. Government's primary 
interlocutory with the United Nations and other international 
agencies and organizations. The Bureau is charged with 
advancing the President's vision of robust multilateral 
engagement as a crucial tool in advancing U.S. national 
interests. U.S. multilateral engagement spans a wide range of 
global issues, including peace and security, nuclear 
proliferation, human rights, economic development, global 
health, and many more.
    Within the Department of State, the Bureau of International 
Organization Affairs is known as the ``bureau without 
borders,'' neither constrained by geography nor subject matter. 
The range of issues within its purview is extremely broad and 
to meet its challenges requires the expertise of not only our 
very able career foreign service officers and civil servants, 
but also the expertise from other bureaus of the State 
Department, other agencies of government, as well as outside 
experts. If confirmed, I would look forward to working 
collegially with all those in and out of government to further 
America's interests.
    My guiding principle, if confirmed to lead IO, will be 
America first but not alone. This means, for example, that at 
USUN New York, under the extraordinarily able leadership of 
Ambassador Haley and her team, we will, when necessary to 
protect our interests and those of allies, not hesitate to uses 
the veto, as we have done recently when Israel was most 
unfairly attacked.
    In Geneva and elsewhere, where we have U.S. missions to the 
U.N., and do not have the benefit of the veto, we must be 
extremely vigilant to protect America's interests. For example, 
in Geneva, we must protect America's most important product, 
intellectual property, in the deliberations of the World 
Intellectual Property Organization. Likewise, we must protect 
the integrity and fair use of the Internet at the International 
Telecommunications Union. There are over 20 international 
organizations in Geneva, in all of which we have important 
issues at stake.
    In Vienna, at our mission to UNVIE, we have vital interests 
before the IAEA and other agencies.
    In Rome, at our mission to the United Nations, we must 
increase our efforts to promote sustainable development.
    In Montreal, at our mission to ICAU, we will protect 
America's civil aviation interests.
    In Nairobi, we have interests in protecting the environment 
and reducing poverty.
    I have touched on only a few of the plethora of important 
issues which will confront the bureau without borders. I am 
sure you have interests which I have not mentioned. I look 
forward to your questions.
    In summary, Senators, I am proud to have served our nation 
as an Assistant Secretary, Deputy Secretary, and United States 
Ambassador. However, the title of which I am most proud I 
earned over 50 years ago on the Parade Deck at Parris Island, 
South Carolina, United States Marine. Semper Fi.
    Thank you.
    [Ambassador Moley's prepared statement follows:]


             Prepared Statement of Hon. Kevin Edward Moley

    Chairman Young, Ranking Member Merkley: I am honored to be here 
today as the President's nominee to be Assistant Secretary of State for 
International Organizations. I would like to take this opportunity to 
thank my wife of 48 years, Dorothy. I wouldn't be here without her 
support, advice, patience, and above all, love.
    I've been privileged and honored to have served my country in the 
administrations of three Presidents, during President Reagan's 
administration, in positions of increasing responsibility at HCFA, now 
CMS, in President Bush 41's administration as Assistant Secretary of 
Management and Budget and later as the Deputy Secretary of the U.S. 
Department of Health and Human Services. In President Bush 43's 
administration, following 9/11, I was nominated to be U.S. Ambassador 
to the U.N. and other International Organizations, in Geneva. I was 
confirmed and served for four-and-a-half years as Ambassador.
    Following my tenure as Ambassador, I served as Chairman of the 
Board of Project Concern International (PCI Global.org), a San Diego 
based NGO, doing development work in Latin America, Asia, and Africa. 
In that capacity I traveled to Mexico, Guatemala, Tanzania, Zambia, and 
Ethiopia to observe and assist in PCI's mission. In Tanzania, Zambia, 
and Ethiopia I met with our U.S. Ambassadors to solicit their views and 
advice.
    If confirmed, I would lead the Bureau of International Organization 
Affairs (IO), which is the U.S. Government's primary interlocutor with 
the United Nations and other international agencies and organizations. 
The Bureau is charged with advancing the President's vision of robust 
multilateral engagement as a crucial tool in advancing U.S. national 
interests. U.S. multilateral engagement spans a wide range of global 
issues, including peace and security, nuclear proliferation, human 
rights, economic development, global health, and many more.
    Within the Department of State, the Bureau of International 
Organizations Affairs (IO) is known as the ``Bureau without Borders,'' 
neither constrained by geography nor subject matter. The range of 
issues within its purview is extremely broad and to meet its challenges 
requires the expertise of not only our very able career Foreign Service 
Officers, and Civil Servants, but also the expertise from other Bureaus 
of the State Department and other agencies of government, as well as 
outside experts. If confirmed, I would look forward to working 
collegially with all those in, and out, of government to further 
America's interests.
    My guiding principle, if confirmed to lead IO, will be ``America 
First, but not alone.'' This means, for example, that at USUN New York, 
under the extraordinarily able leadership of Ambassador Haley and her 
team, we will, when necessary to protect our interests, and those of 
allies, not hesitate to use the veto, as we have done recently, when 
Israel was most unfairly attacked. In Geneva and elsewhere, where we 
have U.S. Missions to the U.N., and do not have the benefit of the 
veto, we must be extremely vigilant to protect America's interests. For 
example, in Geneva, we must protect America's most important product, 
intellectual property, in the deliberations of the World Intellectual 
Property Organization (WIPO). Likewise, we must protect the integrity 
and fair use of the internet at the International Telecommunications 
Union (ITU). There are over 20 international organizations in Geneva, 
in all of which we have important issues at stake. In Vienna, at our 
Mission to UNVIE, we have vital interests before the IAEA, and other 
agencies. In Rome, at our Mission to the United Nations, we must 
increase our efforts to promote sustainable development. As the old 
adage goes, ``It's far better to teach a person to fish than to give 
them a fish.'' In Montreal, at our Mission to ICAU, we will protect 
America's civil aviation interests. In Nairobi, we have interests in 
protecting the environment and reducing poverty.
    I have touched on only a few of the plethora of important issues 
which will confront the ``Bureau without Borders.'' I am sure you have 
interests which I have not mentioned. I look forward to your questions.
    Senators, in summary, I am proud to have served our nation as an 
Assistant Secretary, Deputy Secretary, and as a United States 
Ambassador; however, the title of which I am most proud, is the title I 
earned over 50 years ago on the Parade Deck at Parris Island, South 
Carolina: United States Marine.
    Thank you.


    Senator Young. Nice close, Mr. Ambassador.
    Dr. Olsen?

STATEMENT OF HON. JOSEPHINE OLSEN, OF MARYLAND, NOMINATED TO BE 
                  DIRECTOR OF THE PEACE CORPS

    Dr. Olsen. Chairman Young, Ranking Member Merkley, and 
other distinguished members of the committee, including Senator 
Cardin from my home State of Maryland, it is an honor to appear 
before you today as the President's nominee to lead the Peace 
Corps. I am grateful to President Trump for his trust and 
confidence. I am also grateful to all those who helped me 
prepare for today.
    I also want to recognize my family members who are here 
today and watching live in Portland, Oregon and in Salt Lake 
City, Utah.
    I vividly remember standing in a small classroom before 40 
students on my first day as a Peace Corps volunteer in Tunisia. 
I was 22 years old, nervous, and had no idea what my first 
words would be. In Arabic, French, or English. I stepped 
forward, said my name, and asked for theirs. Together, with 
that day's lesson, my 2 years as a Peace Corps volunteer began.
    I discovered who I was in the face of challenges and 
circumstances that I had never known. I learned to listen to, 
respond, and honor people who were different than me. I learned 
about a way of life in North Africa that was unlike mine in 
Salt Lake City, Utah. I learned that regardless of differences, 
there was so much that connected us. I also learned what it 
meant to serve my country, to be part of something far, far 
greater than myself.
    From that day in Tunisia, service and the Peace Corps have 
remained central themes of my life. Since taking my oath as a 
volunteer, I have been passionately dedicated to lifting up the 
mission and goals of the agency.
    My Peace Corps journey continued when I became a country 
director, then regional director, later chief of staff, deputy 
director, and subsequently acting director. Each of these 
vantage points have reaffirmed my deep belief in the power of 
the Peace Corps to change lives across borders and here at 
home.
    Time and again, I have had the honor of seeing Americans 
engaging with communities in countless countries throughout the 
world. I have also seen the remarkable way that returned Peace 
Corps volunteers teach, inspire, and strengthen communities 
here at home.
    Becoming a Peace Corps volunteer ignites a passion for 
service that illuminates incredible possibility around the 
world and throughout the United States. This passion for 
service glows in Memphis, Tennessee where return Peace Corps 
volunteer Jay Sieleman brought back to life the Blues 
Foundation, which is now the largest blues organization in the 
world. Jay, who after serving as a legal advisor in the Peace 
Corps in the Solomon Islands, understood the importance of 
helping preserve American history and the role that communities 
play. This is why he both raised funds globally to build the 
Blues Hall of Fame in Memphis and simultaneously developed 
initiatives to extend community outreach.
    This passion also glows in the more than 7,000 volunteers 
who are currently serving in more than 60 countries. This 
passion also glows in the more than 230,000 returned Peace 
Corps volunteers, the majority of whom live here in the United 
States.
    Returned Peace Corps volunteers bring home unique language, 
cultural, and diplomatic skills. They return with deep 
knowledge about the countries where they served and new 
perspectives about the ways in which our country engages with 
the world. Today, they are running Fortune 500 companies, 
leading NASA missions on the International Space Station, 
helping Alaska Native villages with food security, and teaching 
our nation's next generation of leaders at schools and 
universities across this country.
    In addition to my Peace Corps service, my work at the 
University of Maryland these past 8 years has further prepared 
me to lead the Peace Corps, if confirmed. As a professor, I 
guided the university's global health education programs and 
saw the importance of cross-community collaboration and 
capacity building for sustainable impact.
    Mr. Chairman and members of the committee, many of you have 
asked about my vision for Peace Corps within its mission and 
three goals.
    First, if confirmed, I will ensure that the Peace Corps 
remains the world's preeminent volunteer agency that offers all 
Americans the opportunity to serve their country regardless of 
age, where they live, or walk of life.
    Second, I will conduct a full country portfolio review to 
both make certain that Peace Corps is sending volunteers to 
interested countries where they are most needed, where they 
stand poised to achieve the greatest impact, and where they 
deliver the best return on investment for American taxpayers.
    Third, I will ensure that the Peace Corps recruit the most 
resilient volunteers and that while serving, the agency's top 
priorities will always remain keeping them safe, healthy, and 
productive in doing their jobs. This includes, Senators, 
continuing to reduce risks for volunteers and respond 
effectively and compassionately to those who become victims of 
crime, including sexual assault. Volunteers can count on the 
Peace Corps being there for them every step of the way as the 
agency continues to advance its mission, which has changed 
countless lives in its 57 years and I have no doubt countless 
more in the years to come.
    Chairman Young, Ranking Member Merkley, and other 
distinguished members of the committee, again thank you for the 
opportunity to appear before you today. Thank you for your 
support for the Peace Corps and its incredible volunteers. I 
look forward to your questions.
    [Dr. Olsen's prepared statement follows:]


          Prepared Statement of Dr. Josephine (Jody) K. Olsen

    Chairman Young, Ranking Member Merkley, and other distinguished 
members of the committee; it is an honor and a privilege to appear 
before you today as the President's nominee to lead the Peace Corps.
    I am grateful to President Trump for his trust and confidence. I am 
also grateful to all those who helped me prepare for today. I also want 
to recognize my daughter, son-in-law, and brother, who are here, and 
family who are watching live.
    I vividly remember standing in a classroom before 40 students at 
the Lycee de Garcon de Sousse on my first day as a Peace Corps 
Volunteer in Tunisia. I was 22 years old, nervous, and had no idea what 
my first words would be. In Arabic, French or English.
    I stepped forward, said my name, and asked for theirs. Together, 
with that day's lesson, my two years as a Peace Corps Volunteer had 
begun. I discovered who I was in the face of challenges and 
circumstances that I had never known. I learned to listen to, respect, 
and honor people who were different than me. I learned about a way of 
life in North Africa that was unlike mine in Salt Lake City, Utah.
    I learned that regardless of differences, there was so much that 
connected us. I also learned what it meant to serve my country--to be 
part of something far, far greater than myself. From that day in 
Tunisia, service has remained a central theme in my life. So too has 
the Peace Corps.
    Since taking my oath as a Volunteer, I have been passionately 
dedicated to lifting up the mission and goals of the agency. My Peace 
Corps journey continued when I became a country director; then regional 
director; and later, Chief of Staff; Deputy Director; and subsequently, 
Acting Director. Each of these vantage points has reaffirmed my deep 
belief in the power of the Peace Corps to change lives across borders 
and here at home.
    Time and again, I have had the honor of seeing Americans engaging 
with communities in Togo, Peru, Armenia, and countless other countries. 
And I have seen the remarkable ways that Returned Peace Corps 
Volunteers teach, inspire, and strengthen communities back home in the 
United States.
    Becoming a Peace Corps Volunteer ignites a passion for service that 
illuminates incredible possibility around the world and throughout the 
United States.
    This passion for service glows in Memphis, Tennessee, where 
Returned Peace Corps Volunteer Jay Sieleman brought back to life the 
Blues Foundation, which is now the largest and most renowned blues 
organization in the world. Jay, who after serving as a legal advisor in 
the Peace Corps in the Solomon Islands, understood the importance of 
helping preserve American history and the role communities play. This 
is why he both raised funds globally to build the Blues Hall of Fame in 
Memphis and simultaneously developed initiatives to extend community 
outreach, provide medical and health support to musicians, and grant 
educational and scholarship opportunities for the next generation of 
blues players.
    As I speak, this passion glows in the more than 7,000 Volunteers 
who are currently serving in more than 60 countries. This passion also 
glows in the more than 230,000 Returned Peace Corps Volunteers all 
across the United States. Returned Peace Corps Volunteers bring home 
unique language, cultural and diplomatic skills. They return with deep 
knowledge about the countries where they served, and new perspectives 
about the ways in which our country engages with the world. They are 
true global citizens contributing to our global economy, our country, 
and the urban and rural communities where they live and work all across 
the United States.
    Today, they are running Fortune 500 companies, leading NASA 
missions on the International Space Station, helping Alaska Native 
villages with food security, and teaching our nation's next generation 
of leaders at schools and universities across our country.
    In addition to my Peace Corps service, my work at the University of 
Maryland, has further prepared me to lead the Peace Corps if confirmed. 
I have guided the University's global health education programs. In the 
process of working with students and health care professionals across 
the globe, I have seen the importance of cross-community collaboration 
and capacity building for sustainable impact.
    Mr. Chairman and members of the committee, many of you have asked 
about my vision for the Peace Corps within its mission and three goals:

   First, if confirmed, I will ensure that the Peace Corps remains the 
        world's preeminent volunteer agency that offers ALL Americans 
        the opportunity to serve their country. Regardless of their 
        age, where they live, or their walk of life.
   Second, I will conduct a full country portfolio review to both make 
        certain that Peace Corps is sending volunteers to interested 
        countries where they are most needed, where they stand poised 
        to achieve greatest impact, and where they deliver the best 
        return on investment for American taxpayers.
   Third, I will ensure that the Peace Corps recruit the most 
        resilient Volunteers and that while serving, the agency's top 
        priorities will always remain keeping them safe, healthy, and 
        productive in doing their jobs. This includes, Senators, 
        continuing to reduce risks for Volunteers and respond 
        effectively and compassionately to those who become victims of 
        crime, including sexual assault.

    In those tragic instances, Volunteers can count on the Peace Corps 
being there for them every step of the way. I see no higher priority 
for the Peace Corps than the safety and security of our Volunteers as 
the agency continues to advance its mission, which has changed 
countless lives in its 57 years--and, I have no doubt, countless more 
in the years to come.
    Chairman Young, Ranking Member Merkley, and other distinguished 
members of the committee; again, thank you for the opportunity to 
appear before you today.
    Thank you for your support of the Peace Corps and its incredible 
Volunteers.
    I look forward to your questions.


    Senator Young. Thank you, Doctor.
    Ambassador Moley, as you know, fentanyl is a synthetic 
opioid that is significantly more potent than heroin. Fentanyl 
and related substances are linked to the horrible and ongoing 
opioid epidemic in this country and have become increasingly 
available. This is a terrible problem around the country I know 
but most especially, I would say, in certain States like my 
home State of Indiana.
    According to the Congressional Research Service, quote, 
clandestine-produced fentanyl, as well as most illicit fentanyl 
precursor chemicals and fentanyl analogs, are primarily sourced 
from China and smuggled into the United States through Mexico, 
Canada, or other direct mail. Unquote. In addition, the DEA 
suspects Mexican labs may use precursor chemicals smuggled over 
the southwestern border to produce fentanyl.
    Mr. Moley, as the Assistant Secretary of State for 
International Organization Affairs, you would develop and 
implement U.S. policy as it relates to international 
organizations. If confirmed, do you commit to working closely 
with me and my office to ensure our nation has the optimal 
strategy for using our voice, our vote, and our influence in 
international organizations to address the illicit 
international production and trafficking of fentanyl and 
related substances?
    Ambassador Moley. Senator, thank you for your question. And 
yes, I certainly will make that commitment to work with you and 
your staff to combat fentanyl trafficking.
    Specifically, the Universal Postal Union based in Bern, 
Switzerland, which is in the purview of our U.N. mission to 
Geneva and, quite frankly, when I served there was something of 
an afterthought--it is now front and center in terms of our 
ability to combat the opioid crisis, exploiting vulnerabilities 
in U.S. and international mail. In fact, Senators Portman and 
Carper released a report on January 24th on this very subject, 
and there is much that we can do in increasing our ability to 
intercept that traffic using AEDs, advanced electronic data, 
i.e., bar codes with more information about the sender, which 
is often not in place when mail comes into the United States 
carrying, trafficking fentanyl.
    So I absolutely make that commitment to work with you and 
your staff and others. I know others on this committee are in 
States that also have extreme opioid crises.
    Senator Young. Thank you, Mr. Ambassador. I know the people 
of Indiana appreciate that commitment as well.
    Mr. Moley, as you know, Ambassador Haley has prioritized 
U.N. peacekeeping reform. What do you see as the top priority 
when it comes to U.N. peacekeeping reform?
    Ambassador Moley. U.N. peacekeeping reform, Senator, is a 
very important priority for Ambassador Haley and all of us who, 
if confirmed, would be working in IO. There are over 100,000 
U.N. peacekeepers, at an expense of $8 billion, in 15 missions 
currently. There have been issues in respect to sexual 
exploitation and abuse. On the other hand, there is a recent 
GAO report that suggests that it is much less expensive for 
U.N. peacekeepers to be used in some of these areas than 
obviously would be to use U.S. armed forces.
    So it is very important that we make sure that Secretary-
General Guterres, who is making reform efforts in this area, 
has the tools necessary to ensure that the units that are 
deployed are appropriate for the cause they are serving and are 
well trained and do not subject the indigenous population to 
sexual abuse and exploitation.
    Senator Young. Well, I appreciate your interest in and 
knowledge of this issue, as I know the ranking member does.
    On September 7th, Senator Merkley and I sent a letter to 
the General Accountability Office requesting a formal review of 
all ongoing United Nations peacekeeping operations, and that 
review is underway and is about one-third complete. When that 
review is complete, if confirmed, do you commit to reviewing it 
and working with my office and other members of this committee 
to implement any prudent recommendations for U.N. peacekeeping?
    Ambassador Moley. Absolutely, Senator. If confirmed, I 
would look forward to working with you and your staff on this 
issue because U.N. peacekeepers are at the heart of the U.N.'s 
credibility, and if we lose credibility for those peacekeepers, 
then we have little further to go on. And it is absolutely 
essential. And I believe Secretary-General Guterres shares that 
view as well.
    Senator Young. Dr. Olsen, many who are observing these 
hearings may not be familiar with the Peace Corps. Based on 
your deep experience in the Peace Corps, as well as your 
preparation for this hearing, perhaps in your own words you can 
share for those who are watching what you see as the 
fundamental mission or purpose of the Peace Corps.
    Dr. Olsen. Thank you very much, Senator, for that question.
    Peace Corps' mission is world peace and friendship and 
three goals: to assist in technical assistance with 
counterparts in countries that invite volunteers to serve; 
second, to share who they are as Americans; and third, to bring 
that experience back home sharing with Americans as returned 
volunteers continue to serve. Thus, the core purpose of Peace 
Corps or the core mission and activities of Peace Corps is to 
recruit from all Americans, to ensure they have good situations 
in which to serve, and to keep them safe, secure, and healthy 
while serving.
    Senator Young. So how are we doing? How is the Peace Corps 
doing in fulfilling that important mission? And what are some 
areas you believe may require increased attention? And if you 
could highlight how you envision addressing any of these areas 
that may require increased attention, that would be most 
helpful.
    Dr. Olsen. Thank you, Senator.
    Peace Corps is doing very well. I obviously have biases. 
Peace Corps' recruitment is at--about 22,000 people apply a 
year, the highest ever, with 7,300 volunteers in the field in 
over 60 countries, as I said before. The welcome to Peace Corps 
around the world is very strong and the collaboration with 
countries is very strong. And the work that returned Peace 
Corps volunteers do here in the United States affects 
communities, education institutions throughout the United 
States.
    Peace Corps needs to continue to focus on strong 
programming, strong health support, and risk reduction for 
crime and sexual assault. Peace Corps has come a long way in 
the last few years, particularly the last 2 or 3 years, in 
setting up systems that can greatly reduce the risk of crime 
and sexual assault. If confirmed, I will focus strongly on 
strong programming, strong health support, strong risk 
reduction, safety and security, and honoring those volunteers 
who have returned back to this country to serve here.
    Senator Young. Thank you.
    With that, I will turn to the ranking member, Senator 
Merkley.
    Senator Merkley. Thank you both for your testimony and for 
your willingness to consider leading these organizations.
    Ms. Olsen, I am delighted to know that you have a son and 
his family in Oregon and that you visit it regularly. So 
continue to visit often. [Laughter.]
    Senator Merkley. And you bring an extensive background in 
the Peace Corps to consideration of this mission of leadership.
    You mentioned in your testimony that there is no higher 
priority for the Peace Corps than the safety and security of 
our volunteers as the agency continues to advance its mission. 
It is in fact a setting that Peace Corps volunteers put 
themselves into that is not inherently safe. It does not have 
many of the layers of protection that we might have in our 
lives here in the United States, friends nearby, all forms of 
communication, transportation, and so forth. And so there is 
inherent risk. But obviously you hope to minimize that.
    And so I thought I would just ask, as one looks back on 
some of the cases of the past that received some considerable 
attention, the Kate Puzey case, which I think happened when you 
were an Acting Director, and Nick Castle. We passed the Nick 
Castle Act. Well, it recently passed the Senate Foreign 
Relations committee. He had died in China as a Peace Corps 
volunteer without adequate medical care. As you look back on 
some of these things, how does it shape the sense of where you 
want to go in trying to enhance, under difficult conditions, 
the health and welfare of the volunteers?
    Dr. Olsen. Thank you, Senator.
    And my grandchildren are waving at you right now from their 
classroom in Portland, Oregon.
    I still grieve the murder of Kate Puzey, and I remain 
heartbroken. And in honor of her life and her light as a Peace 
Corps volunteer in Benin, I commit to continue to strengthen 
safety and security, privacy support through training, through 
safety and security officers, through regional officers to 
ensure that risk reduction can continue to be as strong as 
absolutely possible.
    I also note with the passing of Mr. Castle, who was a 
volunteer in China and the legislation that is I know now 
before you, any legislation that strengthens the commitment of 
Peace Corps in safety and security and in health is critical 
for the agency. And the agency is grateful that the Senate 
staff worked with the Peace Corps in shaping and building that 
very important piece of legislation.
    I personally, if confirmed, will continue to directly work 
with the Office of Victim Advocacy and the Office of Sexual 
Assault Risk Reduction and Response, the two offices at Peace 
Corps that are involved in training all Peace Corps staff and 
all Peace Corps volunteers in sexual assault, risk reduction, 
and response and that that continued in-service training and 
support stay strong, that Peace Corps continue to be a best 
practices agency that works strongly with other agencies and 
organizations.
    Senator Merkley. Thank you very much. I appreciate that.
    And, Ambassador Moley, I wanted to give you a chance just 
to state a few things on the record. You are an investor with a 
broad portfolio that touches on many market sectors that could 
be influenced by U.S. policy at the U.N.. My understanding is 
that you have agreed to, if confirmed, sell those holdings that 
raise conflict of interest concerns. Is that correct?
    Ambassador Moley. Yes, I have, Senator. I have signed an 
ethics agreement that would require me to divest those 
interests.
    Senator Merkley. Great. Thank you.
    In 2004, you wrote a letter to the editor of the 
International Herald Tribune'' that defended the Bush 
administration's practices in the detention of enemy combatants 
in Guantanamo. There has been a lot of debate in the many 
years, 14 years, since and we learned a lot. Is there any ways 
in which your thoughts in regard to detention have evolved?
    Ambassador Moley. Well, they have evolved to the extent, 
Senator, that I still believe that Lord Steyn was repudiated by 
the very fact that he mentioned that we were conducting the 
detentions at Guantanamo illegally against both U.S. law, 
international law, and the Geneva Conventions. As we now know, 
of course, in the case of Hamdan v. Rumsfeld, decided June 
29th, 2006, of course, we subjected our detention principles in 
Guantanamo to our courts, and we are under now a new legal 
framework than we were at the time. Obviously, my letter was 
not written without the assistance and clearance of legal 
counsel from the State Department, from the Justice Department, 
from the Defense Department, and from the State Department. But 
as I said, Hamdan v. Rumsfeld I think clearly repudiates Lord 
Steyn's principal contention that we were operating outside the 
law.
    Senator Merkley. Thank you. I will note that in contesting 
his arguments you argued that his concern that use of force was 
presented against the prisoners--you contested that and said we 
are operating completely on humane treatment of detainees. We 
did have significant additional information. Any changes in 
your thoughts in that regard?
    Ambassador Moley. To the extent that I was wrong at the 
time, it was by virtue with the assurances I had received from 
the Department of the Navy.
    Senator Merkley. Thank you very much.
    The Trump administration has cut funding to the United 
Nations Population Fund which provides critical maternal and 
family planning support to women and children in vulnerable 
situations. I saw them at work in the refugee camps in 
Bangladesh providing essential aid as hundreds of thousands of 
refugees were pouring in.
    If confirmed, would you consider advocating to restore this 
critical funding?
    Ambassador Moley. Senator, I was not present, of course, 
when those deliberations and decisions were being made, and I 
certainly look into that issue. I know that there are 
differences of opinion in regard to that issue. In fact, my 
predecessor, Sheba Crocker, Assistant Secretary of State at the 
time, has said that the rationale for cutting those funds is 
incorrect. And I will be taking into consideration both her 
comments, quite frankly, and also those of those people who 
made the decision at the time. So it is an issue of importance 
to many of you on the committee, and I will in fact look into 
it.
    Senator Merkley. Thank you.
    Ambassador Moley. If confirmed.
    Senator Young. I would note that we are likely to go to 
multiple rounds here by members' requests, so at least two 
rounds, again 7 minutes for questions.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman. Does that mean I 
get both rounds now or do I have to wait?
    Senator Young. You have got to wait. We want to see how you 
do on this first round. [Laughter.]
    Senator Gardner. Thank you, Mr. Chairman.
    Thanks to both of the nominees for your service. Thanks for 
being here today. I am grateful for your support.
    Dr. Olsen, I will start with you. Thank you very much for 
the book that you presented in my office, Pauline Berkey I 
believe. For the information of members of the committee, could 
you explain how Colorado State is really responsible for the 
Peace Corps? [Laughter.]
    Dr. Olsen. I would be delighted to.
    Senator Gardner. Thank you, which is a true statement. And 
I also want to brag up Colorado, because if you look at per 
capita, Boulder, Colorado, I think is the number three biggest 
contributor to the Peace Corps.
    Dr. Olsen. It is.
    Senator Gardner. Fort Collins, Colorado is number five to 
the Peace Corps. We are very proud of that fact. So thank you 
for your service.
    Ambassador Moley, in the 114th Congress, this body passed 
legislation that would require the State Department to develop 
a U.S. strategy to endorse and obtain observer status for 
Taiwan in appropriate international organizations, including 
Interpol, the World Health Organization, the International 
Civil Aviation Organization, and others.
    Could you explain to me efforts that you would pursue to 
ensure full U.S. support for Taiwan's meaningful participation 
in international organizations?
    Ambassador Moley. Senator, we will pursue Taiwan's 
participation in any and all international fora, which does not 
have a requirement for participation of statehood, and we will 
make a very strong effort to get them involved. They are an 
important participant in many ways and would add to the 
international debate in many, many of the fora before the 
United Nations. If statehood is not required for membership, 
there is no reason why Taiwan should not be admitted.
    Senator Gardner. I think Taiwan can play a critical role in 
global leadership, whether it is issues relating to disease 
control, eradication, crime organizations and eradication, and 
participation in a number of organizations involved in relief 
efforts, criminal efforts that we have got to make sure that 
they have their full participation. Thank you for that.
    And I hope that you will give me this commitment--I think 
you just did--that you will raise at the highest levels with 
international counterparts, including with representatives from 
the People's Republic of China, that commitment.
    Ambassador Moley. You have my full commitment, Senator.
    Senator Gardner. Thank you very much, Ambassador.
    In September 2017, I authored letters to 21 nations asking 
them to close their diplomatic facilities in Pyongyang and to 
support expelling North Korea from the United Nations as part 
of the administration's maximum pressure campaign.
    Would you support efforts to expel North Korea from the 
United Nations and other international organizations?
    Ambassador Moley. I will support the administration's 
position in respect to increasing leverage at every level on 
DPRK.
    Senator Gardner. I believe the administration has done a 
pressure campaign as well on many of these embassies and 
countries in Pyongyang. Is that correct?
    Ambassador Moley. You will have my support.
    Senator Gardner. You will continue that. Thank you.
    Mr. Chairman, I yield my time.
    Senator Young. Thank you.
    Senator Gardner. Actually, Mr. Chairman, do you mind? I got 
really excited about yielding, but I do have a couple more 
questions I want to get to, if you do not mind. Reclaiming my 
time.
    Senator Young. You mean----
    Senator Gardner. In round two. Thank you.
    Senator Young. Go ahead.
    Senator Gardner. Thank you.
    Ambassador Moley, continuing with you along this line of 
questioning, could you share with me your strategy to combat 
the anti-Israel bias at the United Nations and other 
international organizations?
    Ambassador Moley. Well, it is particularly pervasive, 
Senator, as you know, at the Human Rights Council, which is 
meeting as we speak in Geneva. Our Acting Assistant Secretary, 
Ambassador Molly Phee, is there as we speak, and I know she 
will make every effort--and I certainly would, if confirmed--to 
push back against anti-Israel bias as reflected in item 7 of 
the Human Rights Council's deliberations.
    Senator Gardner. Would you support withdrawal of the United 
States' participation in the Human Rights Council if they 
continue this anti-Israel bias?
    Ambassador Moley. As you may know, we come up for our term 
limit in 2019, and I will, if confirmed, be participating in 
those deliberations to make a determination as to what is in 
our best interest to seek another term or not. Sometimes it is 
more appropriate to be inside the tent than outside the tent, 
but there are certainly arguments to be made on both sides of 
that.
    Senator Gardner. And thank you.
    And last question. Could you outline a strategy that will 
help ensure and prevent the Palestinian Authority from 
obtaining international recognition at the United Nations and 
other international organizations?
    Ambassador Moley. At this time, Senator, we are not aware 
of any effort for them to gain that recognition, but we will 
fight it at every turn, should it arise. As you know, we left 
UNESCO as a consequence of them being admitted to statehood in 
that organization.
    Senator Gardner. Thank you, Ambassador.
    And I have 2 minutes remaining on my time. Before I yield 
it back, Dr. Olsen, if you would like to pontificate on 
Colorado State University, that is fine with me. If not, I will 
yield back my time.
    Dr. Olsen. I will just say two faculty in 1960 wrote what 
became the outline of Peace Corps, and in fact, they were 
invited back to Washington, DC by Sargent Shriver in March of 
1961 to help guide the initial formation of Peace Corps.
    Senator Gardner. Thank you.
    Senator Young. Thank you, Senator Gardner.
    Senator Shaheen?
    Senator Shaheen. Thank you.
    Thank you both for your willingness to be nominated for 
these very important posts.
    Ambassador Moley, as you may be aware, last month U.S.-
supported forces in Syria captured two ISIS fighters who were 
believed to be members of the group known as the Beatles. These 
two captured men are alleged to have been intimately involved 
in the imprisonment, torture, and murder of one of my former 
constituents, James Foley. Mr. Foley's family has publicly 
requested that President Trump take steps to ensure that these 
two men are held responsible for their crimes, meaning that 
they be tried either in the United States or in some sort of an 
international arena.
    If confirmed, do you commit to pursuing options to bring 
them to justice, including through international justice 
mechanisms?
    Ambassador Moley. If confirmed, Senator, I do so commit. 
Every effort should be made to bring these people to justice.
    Senator Shaheen. And do you have any thoughts about where 
the most appropriate place would be to do that?
    Ambassador Moley. Quite frankly, Senator, I do not. I know 
what I have read in the public media, but I am not, as yet, 
confirmed and have not been read in on that issue. But I will 
commit to making every effort to bring them to justice and will 
work with you in that regard.
    Senator Shaheen. Well, thank you very much. I appreciate 
that and I know that the Foley family will as well.
    I want to follow up a little bit on Senator Merkley's 
question about UNFPA because in March of 2017, the Trump 
administration invoked the Kemp-Kasten amendment to withhold 
U.S. funding for the United Nations Population Fund. Now, that 
amendment states that no U.S. funds may be made available to 
any organization or program which, as determined by the 
President of the United States, supports or participates in the 
management of a program of coercive abortion or involuntary 
sterilization.
    Ambassador Moley, are you aware or have you heard from 
anybody in the administration any information that would 
suggest that UNFP has been engaged in this prohibited behavior?
    Ambassador Moley. Senator, only to the extent that in 
briefing materials I have seen the allegation that funding has 
gone to a Chinese health agency which has, in fact, implicitly 
or explicitly coerced abortion.
    Having said that, I recognize there are conflicting 
opinions, and as I mentioned, my predecessor as recently as 
April wrote an article--Sheba Crocker--to the extent that she 
does not believe that there is proof of that allegation. I am 
intending to reach out to former Assistant Secretary of State 
Crocker to hear her rationale for why she does not believe that 
is the case. Having said that, if confirmed, of course, I will 
then have information about the deliberation and the 
determination that was made by the President in this regard.
    Senator Shaheen. Well, I very much appreciate your 
following up on that. I am not aware nor have I heard from 
anyone in the administration that UNFPA is engaged in any 
behavior that would mean that it would be prohibited from 
gaining funds. So I think your willingness to follow up is very 
important, and I hope you will share with this committee what 
you learn with that regard and that we will take action if your 
finding is that they should not be prohibited from receiving 
funds because, as Senator Merkley pointed out, they do 
tremendous and very important work for women and children in so 
many parts of this world. And for us to dramatically reduce 
funding there has had serious consequences for women and 
families.
    I also want to follow up on your comments about when it is 
appropriate to withdraw from international organizations. I 
appreciate that international organizations do not always do 
what we would like them to do, and that sometimes presents 
foreign policy challenges. But the fact is it seems to me that 
often when we withdraw, we reduce our ability to influence what 
those organizations do rather than increase it.
    So under what circumstances would you advise us withdrawing 
from an international organization?
    Ambassador Moley. Senator, it would be determined by the 
circumstances at the time. If confirmed, I can assure you that 
I would make sure that all sides of the issue were heard 
because, as I indicated earlier, oftentimes as repugnant as 
some of these organizations' decisions may be, better to be 
inside the tent, as you have indicated, than outside the tent. 
Having been inside the tent and outside the tent, for example, 
as the head of the delegation at the U.N. Human Rights 
Commission when I was Ambassador, the predecessor to the Human 
Rights Council, and later as the deputy head of delegation on 
four occasions when we were inside the tent as members of the 
Human Rights Commission, there are arguments to be made on both 
sides of that as to points of leverage that can be used from 
both the outside and from the inside. But I would make sure 
that we made a mature, thoughtful decision before we would ever 
decide to leave an organization.
    Senator Shaheen. Well, thank you. I appreciate that. I am 
of the view that it is generally more important to be inside 
the tent looking out than outside the tent looking in.
    Ambassador Moley. As do I, Senator.
    Senator Shaheen. I will paraphrase that.
    Ms. Olsen, I very much appreciate your past experience at 
the Peace Corps and your willingness to take on the role as 
Director there. I am not going to ask you about the safety 
issue because I believe that is still a serious concern for 
Peace Corps volunteers and you have addressed that in your 
comments. And I appreciate your talking about what you would do 
as Director to address that, and I would encourage you to 
follow through on that and anything that I or this committee 
can do to help you with that I know we would be very willing to 
do so.
    Dr. Olsen. I really appreciate your comments, Senator. And 
the agency, and if I am confirmed, I look forward to working 
with you on continuing to strengthen the safety and security.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Young. Well, thank you, Senator Shaheen.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thank you to the 
witnesses.
    I will start, Dr. Olsen, with you. I was at a breakfast 
this morning, and I was chatting with a young man who told me 
that he had just gotten back from being a Peace Corps volunteer 
in Latin America. And I said, well, in my committee this 
afternoon, we are going to have the nominee to be head of the 
Peace Corps before us. And he said, well, tell me about the 
nominee. I said, well, she was in the Peace Corps, and I was 
going to say other things about you, but he just stopped me and 
said, oh, I am sure she will be fine. [Laughter.]
    Senator Kaine. The 230,000, as you described, Peace Corps 
alums--they get a lot of confidence--even if they do not know 
you, they get a lot of confidence when there is a nominee who 
has lived what they have lived. And you have done that not only 
in your service in Tunisia but as a country director, regional 
director, acting chief, other capacities with the Peace Corps.
    Dr. Olsen. Thank you, Senator.
    Senator Kaine. Do we make enough use of our 230,000 Peace 
Corps veterans?
    Dr. Olsen. Senator, that is a great question. And I would 
say probably not. The return volunteers are eager to serve to 
continue in their work.
    Senator Kaine. Absolutely.
    Dr. Olsen. And I think the ways that collectively we can 
reach out and encourage their cross-cultural skills, language 
skills so that they can do even more to make communities 
stronger.
    Senator Kaine. I think the Peace Corps volunteers that I 
know, including in my own family, have so much to offer, and 
they are offering. You shared the example of the individual in 
Memphis I guess in your opening comments, which I read. They 
are doing so much on their own. They have had the experience 
that has equipped them for a life of public service. But it 
seems that there are just strategic ways we can use them to 
explain to our public the value of the kind of diplomacy and 
soft power that Peace Corps represents. And I would hope that 
one of your initiatives, obviously, the current members, 
recruiting, growing if possible, taking care of the health and 
safety needs of the current Peace Corps volunteers is the key 
responsibility. But I hope you will contemplate ways that you 
can continue to ask these wonderful returning Peace Corps 
veterans to consider doing even more because I think their 
skill set is a remarkable one.
    But congratulations to you for your nomination.
    I want to ask you, Mr. Moley, really quickly on global 
organizations. I was interested in your exchange with Jeanne 
Shaheen, Senator Shaheen. And you are right. Sometimes these 
organizations are reprehensible.
    But I will admit I was troubled by a recent move of the 
administration on an organization that was not reprehensible 
because it was only getting started. In September of 2016, the 
U.S. worked, together with other organizations at the U.N., to 
put together a global compact on migration. And the idea behind 
this global compact was that migrants and refugees are getting 
to be more and more of a constant in the world, and whether 
they are driven by natural disasters, weather emergencies, 
climate change, civil wars, corruption, we see millions and 
millions of people transiting the globe often from one 
continent to another as refugees and migrants. And that is not 
likely to change.
    And so the idea behind the global compact was maybe we, 
nations of the world, need to share our best practices again 
and really think about policies. The U.S. was sort of the 
originator of the idea of the compact, and it was nothing more 
than an effort to convene a dialogue among all nations of the 
world to determine what future best practices might be.
    In December of 2017, on the eve of the first meeting of the 
global compact on migration in Mexico, the Trump administration 
announced it would not send the U.S. representative. I think we 
were the only nation that did not have representation there.
    And I have asked State Department folks at the table why 
that is, and they have indicated that we are concerned about 
our sovereignty. They did not say that the organization was 
reprehensible. They did not evidence to anti-Israel bias. They 
said we were concerned about our sovereignty.
    Obviously, that argument would suggest we would never be 
involved in any international organization, which is an 
untenable position. And there is nothing about participating in 
a global dialogue to share best practices about how to deal 
with migrants and refugees that involves an incursion into the 
sovereignty of the United States at all.
    So I guess I would first ask, do you know anything about 
the reason for the decision of the United States to withdraw 
itself uniquely from the global compact on migration?
    Ambassador Moley. No, Senator, I do not. Having said that, 
I will commit to you that I will, if confirmed, look into it, 
and hopefully give you a more studied response.
    Senator Kaine. I would appreciate that.
    Would you agree with me that the issue of migrant and 
refugee flows in the world is a significant issue, both 
humanitarian but also a national security issue that affects 
many nations, including the United States?
    Ambassador Moley. It is clearly a significant issue. As to 
why we made that determination in December 2017, quite frankly 
I have not been read in. I do not know the deliberations that 
took place. But I will confirm to you that I will find out.
    Senator Kaine. I am proud enough--maybe sometimes too 
proud--of our country to think that we are not going to come up 
with the best solutions or policies on this issue if the United 
States is absent from the table. I do not think we have all the 
answers, but I think we have an awful lot of answers and an 
awful lot of expertise. I assume that you would share that 
opinion as well.
    Ambassador Moley. I do.
    Senator Kaine. All right. Thank you, Mr. Chair. I do not 
have other questions.
    Senator Young. Thank you, Senator Kaine.
    Mr. Moley, have you been following the situation in Eastern 
Ghouta, Syria, including the attacks by the Russians and the 
Assad regime on civilians and medical facilities?
    Ambassador Moley. Yes, Senator, and of course, I am aware 
of the sanctions--excuse me--the ceasefire that Ambassador 
Haley has managed to finally get past the Security Council 
despite delay from Russia itself, and I think she should 
deserve great credit for having achieved that this past 
Saturday.
    Senator Young. So I would echo your commendation of her 
efforts and her team's efforts. Russia has killed hundreds of 
innocent men, women, and children using its position on the 
Security Council to delay that resolution calling for a 
ceasefire.
    When Russia acts this way at the Security Council, how do 
you believe the U.S. and the international community more 
broadly should respond?
    Ambassador Moley. And, Senator, to add to that, Russia 
continues to obstruct in the way of issuing a veto just 
yesterday I believe in respect to its transmission of arms to 
Yemen. And they vetoed the sanctions against Iran that would 
have been imposed at Ambassador Haley's recommendation. So I 
think working with Ambassador Haley and her team and others of 
our ambassadors, I think we need to push back at Russia at 
every turn in regard to their vetoing peaceful resolutions that 
otherwise would be passed.
    Senator Young. Clearly they are trying to test us on many 
fronts. So I am happy with that response.
    According to its website, the U.N. Relief and Works Agency 
for Palestine refugees, or UNRWA, operates 677 elementary and 
preparatory schools in its five areas of operation, as well as 
eight secondary schools in Lebanon, for approximately 515,000 
Palestinian children. Helping to educate children who would not 
otherwise receive such education is unambiguously good. I would 
note that the United States has been the largest single donor 
to this U.N. relief agency.
    Mr. Moley, are you aware of the educational activities 
supported by this entity?
    Ambassador Moley. Yes, I am. And I agree with you, Senator, 
of their importance. There are certain other issues related to 
that of concern to us, but I do agree with the importance of 
educating children everywhere, most especially in Palestine.
    Senator Young. So you reference so many other issues. I 
will dive in. Some of the textbooks being used in these schools 
reportedly include maps that omit the state of Israel and 
include images and examples that promote violence and support 
martyrdom. If we are trying to encourage a durable peace--and 
that is what we all want, a durable peace--between the Israelis 
and Palestinians, textbooks with this sort of content are 
completely counterproductive. It is difficult for me to justify 
to my constituents using their tax dollars to support schools 
that utilize such textbooks.
    Mr. Moley, you seem to be aware of these reports. You are 
nodding affirmatively. And so if confirmed, do you commit to 
looking into this issue and reporting back to my office within 
90 days on a plan to ensure U.S. tax dollars are not supporting 
the use of textbooks that foster hate towards Israel, support 
terrorism, or degrade women?
    Ambassador Moley. Senator, I do commit to supporting and 
working with you and your team on this issue. I do have a 
relationship from my time in Geneva with the head of UNRWA, 
Pierre Krahenbuhl, who at that time in Geneva was a deputy at 
the International committee of the Red Cross. And I would like 
to think that we could use your leverage, the Senate's 
leverage, and that of the State Department to make sure that 
these textbooks are not proliferated.
    Senator Young. Thank you, Mr. Ambassador.
    I am going to move on to the U.N. Human Rights Council. It 
was brought up earlier. What is your assessment of the council 
overall, and what do you see as the most important reforms that 
the United States should pursue with respect to the council?
    Ambassador Moley. Well, as you know, the council, 
previously the commission, was reformed in 2006 to some benefit 
but also to some not so benefit geographically in terms of 
representation. Having said that, I think it will be a 
continuing effort to assure that countries do not join or not 
voted onto the Human Rights Council principally for the purpose 
of defending themselves and using it as a forum to accuse us, 
as well as Israel, unfairly.
    Senator Young. So you have spoken to the council's 
membership on treatment of Israel, which I appreciate. I share 
that concern.
    So would membership reform be both appropriate and an 
important objective, including open ballots and competitive 
elections, were you to be confirmed?
    Ambassador Moley. Agreed, Senator, absolutely.
    Senator Young. Well, as the chairman and sitting next to 
the ranking member of the subcommittee that oversees 
multilateral institutions, would you commit to, if confirmed, 
working with my subcommittee and my office, where possible, 
related to U.N. Human Rights Council reform?
    Ambassador Moley. Absolutely and unequivocally.
    Senator Young. Dr. Olsen, I am sure you would agree that 
when Americans volunteer to join the Peace Corps, as roughly 65 
Hoosiers have over the last year, we want them to be able to 
serve safely, free from violence and sexual assault. You have 
spoken I think unambiguously about that, and I am grateful for 
that.
    In preparation for this hearing, have you reviewed the Nick 
Castle Peace Corps Reform Act of 2018? I think the name was 
invoked earlier. I am not sure the legislation was.
    Dr. Olsen. Yes.
    Senator Young. Could you speak to any general impressions 
you have regarding the bill?
    Dr. Olsen. Thank you, Senator.
    It is an excellent bill, and it provides the opportunity 
for Peace Corps to continue to take very strong steps towards 
health and safety of the volunteer, particularly the health of 
the volunteer. And I look forward, if confirmed, to carry out 
the elements of the bill and to continue to enhance the health 
care of every single Peace Corps volunteer.
    Senator Young. I think you indicated earlier--you must have 
been referencing this legislation----
    Dr. Olsen. Yes.
    Senator Young.--where Senate committee staff worked with 
Peace Corps staff. And my supposition is that, if confirmed, 
you would commit your staff to engaging this committee on all 
future reform efforts like that.
    Dr. Olsen. Absolutely, Senator.
    Senator Young. Senator Merkley?
    Senator Merkley. Thank you.
    This month, Senator Young and I sent the Senate and House 
Appropriations committees a letter detailing severe food 
shortages worldwide and requested increased funding for the 
World Food Program. I am directing this to Ambassador Moley. If 
confirmed, will you advocate for additional funding for the 
WFP? And what steps will you take to rally the international 
community to address a number of famines that we have currently 
ongoing around the world?
    Ambassador Moley. Senator, as you know, we are the largest 
contributor to the World Food Program, currently at 39 percent. 
I was obviously not part of the deliberations or determinations 
that prepared the current 2019 budget or the 2018 budget. 
Having said that, I would urge additional funding, whether it 
comes from the United States or other participants, to the 
World Food Program. We face four major famines currently, 
Yemen, Nigeria, Sudan, and Somalia, and potentially elsewhere. 
And obviously, the World Food Program--although you and I had a 
conversation last evening about better to teach a person to 
fish than to give them the fish, nonetheless, if there are no 
fishes available, one has to send fishes to the people that 
need it most.
    Senator Merkley. I think you have summarized our 
conversation exactly right. [Laughter.]
    Senator Merkley. I was just speaking earlier today with 
some experts on Sudan who were noting the fact that so much of 
the challenge there is coming from the chaos and disruption of 
war that has made normal activities that one might support 
their family with incredibly difficult to the point of 
producing a famine.
    My colleague, Senator Young, has noted that in Yemen just 
the enormous difficulty of even getting relief into the 
country. And he continues to champion cranes, and I have not 
heard you talk about loading cranes today. I am kind of 
surprised about that. He has continued to say we have got to 
make sure that we address these famines.
    I want to turn back to the United Nations Relief and Works 
Agency. My colleague pointed out the enormous critique we have 
of some of the material in the textbooks. What UNRWA has done 
is follow U.N. policy which is to use the textbooks provided by 
the host nation. But they have then instructed their teachers 
not to teach that material that is offensive and to provide 
supplemental materials. What else should be done to address 
this situation?
    Ambassador Moley. Senator, I suspect much needs to be done. 
Having said that, I have not been read into the situation as it 
currently exists. Having said that, I pledge to you that I 
will, A. And B, I do believe that my relationship with Pierre 
Krahenbuhl, the current head of UNRWA, will serve me well in 
that function. And I look forward to working with both you and 
the chairman and working cooperatively and making sure we are 
all on the same page in respect to the exact circumstances on 
the ground, if confirmed.
    Senator Merkley. Great. I will look forward to your 
insights on that.
    And it is my understanding that the Government of Israel 
supports this aid. They recognize that it is very hard to have 
an economy in the West Bank because it is isolated. It is 
surrounded and does not have easy access for inputs to an 
economy or an ability to get goods out to sell to the world, 
and that having these 500,000 children in school learning and 
being able to, hopefully, contribute in some way is better than 
having 500,000 children out of school. And they also do a 
tremendous amount on health care as well.
    Do you share the view that it is helpful in this 
challenging situation to have this investment in health care 
and education?
    Ambassador Moley. Absolutely and unequivocally.
    Senator Merkley. Thank you.
    Then I just wanted to toss an open question your way. You 
can answer it as quickly or as at length as you would like, but 
you served as U.S. Ambassador to the United Nations missions in 
Geneva. What did you learn from that experience in terms of the 
value of multilateral engagement?
    Ambassador Moley. Multilateral engagement is a keystone to 
American diplomacy as reflected in pillar four of the National 
Security Strategy that was outlined by the President and 
released in December of 2017.
    I think one of the most disappointing things I did learn, 
however, Senator, was that oftentimes our friends mistook 
compromise with concession. Much of that I believe comes from 
their own past experiences, colonial powers in Africa and 
elsewhere. And I found that quite regrettable at times.
    Having said that, we as a nation stand on principle and 
lead by example, and I would like to think that we could 
continue to do so.
    Senator Merkley. Thank you.
    And I guess I do have one last question for you, which is 
you mentioned it is sometimes better to be inside the tent than 
outside. The Paris Accord or Paris Agreement is based on the 
U.N. Framework Convention on Climate Change, and at this point, 
we would officially come out about November 2020 I believe is 
the date. Are there reasons to stay deeply engaged between now 
and then and perhaps to stay longer in terms of taking on the 
challenge of climate?
    Ambassador Moley. In respect to remaining engaged, 
absolutely, Senator. The fact is that the President made clear 
in the G-20's leaders declaration that we remain committed to 
mitigating greenhouse gas emissions. And I take that charge 
very seriously whether it is inside or outside.
    Senator Merkley. Thank you.
    Senator Young. Well, that concludes panel number one, and I 
would like to thank both of you for your time and your interest 
in serving. We will briefly adjourn in order to allow the 
nominees for panel number two to take their places at the 
table. [Recess.]
    Senator Young. I would like to call this hearing back to 
order for panel number two.
    Once again, I would like to welcome Mr. Erik Bethel and Mr. 
Sean Cairncross. Mr. Bethel is nominated to be the United 
States Alternate Executive Director of the International Bank 
for Reconstruction and Development. Mr. Cairncross is nominated 
to be the Chief Executive Officer of the Millennium Challenge 
Corporate, or MCC.
    With that, I welcome you, Mr. Bethel, to provide your 
opening comments in 5 minutes or less, please.

   STATEMENT OF ERIK BETHEL, OF FLORIDA, TO BE UNITED STATES 
  ALTERNATE EXECUTIVE DIRECTOR OF THE INTERNATIONAL BANK FOR 
     RECONSTRUCTION AND DEVELOPMENT FOR A TERM OF TWO YEARS

    Mr. Bethel. Thank you, Senator. Chairman Young, Ranking 
Member Merkley, and distinguished members of the Foreign 
Relations committee, it is a great privilege to appear before 
you today.
    I am honored that President Trump nominated me to serve as 
the U.S. Alternate Executive Director for the International 
Bank for Reconstruction and Development. I am grateful for the 
support of the President and also for the support of Secretary 
Mnuchin.
    Before I begin, I would like to introduce the members of my 
family sitting in the audience today: my wife Michelle; my 
children, Ana Cristina, Niko, and Panchi; and my mother Diana 
who is an emigre from Cuba. I would also like to acknowledge my 
late father, Paul Bethel, who spent a career in public service 
with the U.S. Department of State. His legacy is critical to my 
being with you here today. Most importantly, I am especially 
grateful to have my wife Michelle in my life and for her 
continued support of my desire to serve our nation.
    I have long aspired to work in the public sector, 
especially----
    Senator Young. Mr. Bethel, if I could just interrupt. My 
apologies. I understand we have votes around 4 o'clock, and I 
have consulted with the ranking member. If there is any way to 
condense any comments--the same with you, Mr. Cairncross--I 
think we can probably get our questions done before the vote 
and will not have to return.
    Mr. Bethel. Certainly.
    Senator Young. Thank you, sir.
    Mr. Bethel. I have long aspired to work in the public 
sector, especially in the capacity of finance and emerging 
markets and poverty reduction. Furthermore, I strongly believe 
in the mission of the World Bank, and I look forward to sharing 
my objectives with you as a candidate and to answering any 
questions you might have.
    For more than 2 decades, I have worked at the intersection 
of finance and emerging markets. I have also lived and I have 
worked in Latin America. I speak Spanish and I speak Mandarin 
and I speak Portuguese. If confirmed, I will utilize by 
professional experiences to promote the mission of the World 
Bank and to further U.S. interests.
    Cycles of corruption, poverty and crime pose an enduring 
threat to the immense potential of the developing world, and I 
believe it is important to address these issues. We would be 
wise to heed the words of Edmund Burke, who said that the only 
thing necessary for evil to triumph is for good men to do 
nothing. If the developing world is to realize the future it 
deserves, it must overcome these longstanding obstacles with 
the support of the organization like the World Bank.
    And if confirmed, I would seek to leverage the U.S. 
contributions to the bank to ensure that its finance efforts 
are used productively and that they remain consistent with our 
nation's foreign policy interests. And I will also advocate for 
additional efforts to curb corruption, human trafficking, and 
abuses of power in order to promote opportunities for those in 
the developing world to live longer, healthier, and better 
lives.
    Finally, if confirmed as Alternate Executive Director of 
the IBRD, I will work closely with members of this committee 
and its staff and with other Members of Congress to perform my 
responsibilities as effectively as possible.
    Mr. Chairman, I thank you for this opportunity to appear 
before you and other members of the committee, and I look 
forward to your questions. Thank you.
    [Mr. Bethel's prepared statement follows:]


                   Prepared Statement of Erik Bethel

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the Foreign Relations committee, it is a great privilege to appear 
before you today. I am honored that President Trump nominated me to 
serve as the United States Alternate Executive Director of the 
International Bank for Reconstruction and Development, and I am 
grateful for the support of the President and Secretary Mnuchin.
    Before I begin, I'd like to introduce members of my family sitting 
in the audience today: my wife Michelle, my children Ana Cristina, 
Nicolas, and Panchi, and my mother Diana, an emigre from Cuba. I would 
also like to acknowledge my late father Paul Bethel who spent a career 
in public service with the U.S. Department of State. His legacy is 
critical to my being here with you today. Most importantly, I'm 
especially grateful to have my wife Michelle in my life, and for her 
continued support of my desire to serve our nation.
    I've long aspired to work in the public sector, especially in the 
capacity of finance, emerging markets, and poverty reduction. 
Furthermore, I strongly believe in the mission of the World Bank. I 
look forward to sharing my objectives as a candidate and to answering 
any questions involving my qualifications and experiences.
    For more than two decades, I have worked at the intersection of 
finance and emerging markets. I have also lived and worked in Latin 
America and Asia. If confirmed, I will utilize my professional 
experiences to promoting the mission of the World Bank and furthering 
U.S. interests.
    Cycles of corruption, poverty, and crime pose an enduring threat to 
the immense potential of the developing world. I believe that it is 
important to address these issues. We would be wise to heed the words 
of Edmund Burke who said, ``The only thing necessary for the triumph of 
evil is for good men to do nothing.'' If the developing world is to 
realize the future it deserves, it must overcome these longstanding 
obstacles with the support of organizations like the World Bank.
    If confirmed, I would seek to leverage the U.S. contributions to 
the bank in order to ensure that its finance efforts are used 
productively and that they remain consistent with our nation's foreign 
policy interests. I will also advocate for additional efforts to curb 
corruption, human trafficking, and abuses of power in order to promote 
opportunities for those in the developing world to live longer, 
healthier, and better lives. Finally, if confirmed as Alternate 
Executive Director of the IBRD, I will work closely with the members of 
this committee and its staff, and with other Members of Congress, to 
perform my responsibilities as effectively as possible.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee, and I look forward to your 
questions.


    Senator Young. Thank you.
    Mr. Cairncross?

    STATEMENT OF SEAN CAIRNCROSS, OF MINNESOTA, TO BE CHIEF 
      EXECUTIVE OFFICER, MILLENNIUM CHALLENGE CORPORATION

    Mr. Cairncross. Thank you, Mr. Chairman.
    I would like to start by thanking Senator Cornyn for his 
thoughtful introduction, and I appreciate his confidence in my 
nomination. I have always been proud to have worked for him, 
and I am hopeful that I will be able to continue working with 
him going forward.
    Chairman Young, Ranking Member Merkley, members of the 
committee, it is a privilege to appear before you today as 
President Trump's nominee to serve as the next Chief Executive 
Officer of the Millennium Challenge Corporation.
    And if I could just beg the committee's indulgence for a 
quick second, I would like to introduce the members of my 
family here today. No one does anything alone. Or at least, I 
have not. And I have been blessed with a great support network. 
This is dad and mom, Andy and Donna; my sister-in-law Margaret; 
my wife Emily whom I met when I was 6. And these are my kids, 
India and Dominic. I met them when I was older. [Laughter.]
    Mr. Cairncross. I have been interested in foreign affairs 
and America's role in the world since I was a boy growing up in 
Minnesota. As a student, I studied international relations both 
in Washington, D.C. and overseas in England and as a graduate 
student living in England. Living abroad gave me an 
appreciation for the importance of how our country is perceived 
overseas and the power our country has to inspire and to be a 
force for good in the world.
    I became involved in national politics as a means to 
becoming engaged in the American democratic process and in 
government. I served in senior management positions in two 
national party committees, overseeing hundreds of employees and 
budgets that aggregated in the hundreds of millions of dollars. 
When I served as chief operating officer and general counsel to 
these organizations, I was responsible for the reporting and 
the compliance of these highly regulated, highly scrutinized, 
very visible organizations. And I feel very fortunate to have 
gained this management experience while also actively 
participating in the democratic process.
    I entered government when I joined the White House in 
January 2017. During my time in the administration, I have had 
the opportunity to participate in the national security 
policymaking process, and I have gained a practical respect to 
complement my formerly academic appreciation for the role of 
American soft power and U.S. foreign engagement.
    Emily and I do our best to teach our children what it means 
to be an American and to appreciate it. Indeed, my daughter 
India just returned last week from New York in a model United 
Nations program. And it is our sincere hope that they leave 
today's hearing remaining interested in U.S. engagement and 
assured that America is a constant force for good in the world. 
That good governance, economic freedom, and ruling justly are 
not just words but concrete values that America supports 
throughout the world to improve lives and support her 
interests.
    I am honored and humbled to be nominated to lead the 
Millennium Challenge Corporation, which embodies this. It 
provides a framework that mobilizes these ideals while also 
requiring partner country commitment and holding partner 
countries accountable.
    If confirmed, I have three overarching priorities that I 
would pursue.
    First, I would maintain the MCC's model, its strong track 
record of data-driven, accountable results. And I would seek to 
deepen the bipartisan support the agency has enjoyed. And to do 
this, I would rely on MCC's deeply knowledgeable, talented, and 
diverse staff.
    Second, I would seek to increase collaboration with other 
U.S. Government agencies and third party partners, in 
particular U.S. businesses, and maximize the crowding in of 
these resources, as well as the crowding in of domestic partner 
country resources.
    Finally, I would like to help realize the potential of 
regional compacts. Legislation pending here before the Senate 
would open the door to MCC's being able to build regional 
markets, and I believe that if carefully done and done in a 
focused manner, there is great potential there.
    Mr. Chairman, the MCC is a tremendous asset in America's 
foreign policy toolkit. If confirmed, I would commit to work 
hand in hand with this committee, with Congress, with the 
administration, and other MCC stakeholders to maintain its 
record of bipartisan support and measured accountability.
    I am honored to be here. I look forward to answering any of 
your questions. Thank you.
    [Mr. Cairncross's prepared statement follows:]


                 Prepared Statement of Sean Cairncross

    Before I begin, I'd like to thank Senator Cornyn for his thoughtful 
introduction; I am grateful for his trust and confidence in my 
nomination, and I am proud to have worked for him.
    Chairman Young, Ranking Member Merkley, members of the committee, 
it is a privilege to appear before you today as President Trump's 
nominee to serve as the next Chief Executive Officer of the Millennium 
Challenge Corporation.
    If I could beg the committee's indulgence, I would like to thank 
the members of my family who are here today. Nobody accomplishes 
anything alone--or at least I haven't--and I've been very fortunate to 
be surrounded by strong support. This is mom and dad, Donna and Andy. 
This is my sister-in-law, Margaret. And this is my wife, Emily--whom I 
met when I was six--and these are my children, India and Dominic.
    I have been interested in foreign affairs and America's role in the 
world since I was a boy, growing up in Minnesota. As a student, I 
studied international relations, both as an undergraduate, in 
Washington D.C. and England, and as a graduate student in England. 
Living abroad gave me an appreciation for the importance of how our 
country is perceived overseas--and the power that the United States has 
to inspire and be a force for good in the world. I became involved in 
national politics as a means to become involved in the American 
democratic process and government. I served in senior management in two 
national party committees, overseeing hundreds of employees and budgets 
that aggregated in the hundreds of millions of dollars. When I served 
as chief operating officer and general counsel to these organizations, 
I was responsible for the compliance and reporting of these highly 
visible, scrutinized, and regulated entities. I feel fortunate to have 
gained this management experience while actively participating in our 
nation's electoral process.
    I entered government when I joined the White House in January 2017. 
During my time in the Trump administration I've had the opportunity to 
participate in the national security policy making process, and I have 
gained a practical respect--to compliment my formerly academic 
appreciation--of the importance of American soft power and U.S. global 
engagement.
    Emily and I do our best to teach our children to appreciate what it 
means to be an American. Indeed, India just participated in a model 
United Nations program in New York last weekend. It is our wish that 
they remain interested in U.S. engagement, and it is our hope that they 
leave this hearing today with a deeper understanding, and assurance, 
that the United States is a constant force for good in the world. That 
good governance, economic freedom, and ruling justly are not just 
words, but concrete values that America supports throughout the world 
to improve lives and support her interests.
    The Millennium Challenge Corporation embodies this, providing a 
framework that mobilizes these ideals while also requiring partner 
country commitment and holding partner countries accountable for 
results. I am honored and humbled to be nominated to lead such a unique 
and effective agency.
    Mr. Chairman, if confirmed, I will take the lead at MCC during an 
exciting, yet challenging time for the agency and the development 
community at large. With this in mind, I have three overarching 
priorities that I'd plan to pursue.
    First, I would maintain MCC's model, and its track-record of 
transparent, data-driven results--and its strong history of bi-partisan 
support--and I will rely on MCC's deeply knowledgeable, diverse, and 
talented professional staff in doing so.
    Second, I would seek to increase collaboration with U.S. Government 
agencies and third party partners, particularly U.S. businesses--and 
maximize the ``crowding in'' of domestic partner country resources.
    Finally, I'd like to help realize the potential of regional 
compacts. Legislation pending with the Senate would open the door for 
the MCC to engage in regional market building. I believe that, done 
correctly, there is tremendous potential to increase MCC's impact. Mr. 
Chairman, MCC is a great asset in America's foreign policy toolbox. 
Should I be confirmed to lead it, I commit that I will work hand in 
hand with this committee, Congress, and the administration to maintain 
MCC's bi-partisan support and its standard of measurable accountability 
in reducing poverty through economic growth.
    I look forward to discussing these, and other matters concerning 
MCC today--and, hopefully, in the future.


    Senator Young. Thank you, Mr. Cairncross. You quickly 
summarized your professional background. What professional 
qualities have prepared you to assume this position? Give me a 
concise answer, one of two things, please.
    Mr. Cairncross. Yes, sir. My management experience 
overseeing two organizations national in scope, subject to an 
enormous amount of scrutiny, in particular on their budgets, 
how the money is raised and spent, and as counsel, being 
responsible for the compliance of the organization and that 
transparency is something that--and building that culture of 
compliance, which I was responsible for, is something that I 
believe is transferable to the MCC. In fact, the MCC's record 
of transparency is vital to the agency, and I intend to 
continue that.
    Senator Young. Mr. Cairncross, I am glad you emphasized the 
importance of the term is in the development community 
``crowding in'' private sector resources in compact countries 
served by MCC. What more can we do in this particular area to 
get more money crowded in?
    Mr. Cairncross. Sure. Thank you for the question, Senator.
    There are several different avenues to this. The study that 
you co-chaired with Senator Shaheen noted that where U.S. 
foreign assistance is engaged in a country, it is a relatively 
small portion. In fact, 50 percent of that or so is private 
capital flowing in. And so I would seek to increase that 
engagement. I think the efforts being made, for example, in 
Ghana and the compact that we are engaged in there and the 
stamp of approval that the MCC creates in working with these 
governments to create institutional reform targeted at 
corruption, for example, really helps engage that private 
sector capital. I think there is also, on the other end of it, 
maximizing the leverage that other entities bring, such as 
OPIC, and working to de-risk these environments and draw more 
capital in.
    Senator Young. Our office will continue to look closely at 
this matter. We want to be supportive however possible. So, if 
confirmed, if you discover that additional authorities or 
resources are needed in order to optimize the involvement of 
the private sector, will you let myself and our office know so 
that we can work with MCC to get you those resources and/or 
authorities?
    Mr. Cairncross. Absolutely. I appreciate it.
    Senator Young. Thank you.
    Mr. Cairncross, with regard to the choice of MCC compact 
recipients, what weight would you place on a country's 
scorecard performance versus its strategic importance to the 
United States?
    Mr. Cairncross. Sure. Senator, I think the MCC has a great 
track record of success because it has adhered to a very 
objective model in country selection. And so those eligibility 
criteria and good governance, economic freedom, and investment 
in the people are key to the agency's success.
    I think that with respect to the larger strategic interests 
of the United States, the way I view it is MCC is not deployed 
necessarily strategically, but where it is active, it serves to 
buttress and support U.S. strategic interests.
    And then finally, the board of directors that works with 
the MCC and oversees it is really there to provide that last 
overarching spectrum of policy input over the MCC's objective 
criteria. So before a country is selected, eligible for a 
compact, even if it hits those criteria, it still needs to be 
approved by the board of directors in order to engage in a 
compact.
    Senator Young. So your point is there is already a measure 
of discretion built into the system because the board of 
directors is able to exercise its oversight.
    Mr. Cairncross. There is, sir. There is a measure of 
discretion that is built in on that level. And then there is 
also the threshold programs of the MCC which address countries 
that do not quite meet that eligibility criteria but are on the 
verge and through institutional reforms may be able to get 
there.
    Senator Young. Thank you.
    Senator Merkley?
    Senator Merkley. Thank you much, both of you.
    And the question I wanted to ask you, Mr. Bethel, is 
related to the loans that the World Bank has made to Burma. The 
Government of Burma and the military of Burma have been engaged 
in a massive ethnic cleansing operation resulting in more than 
300 villages burned, children killed, women and daughters 
raped, fathers slaughtered, and have driven more than--well, 
now--almost 700,000 people across the border.
    In that type of situation, how should the World Bank 
respond to use its leverage? Should it cut off loans? Should it 
make them contingent upon dramatic changes in the governance? 
Should it say we will lend you money, but it has to go to very 
specific projects and monitor it carefully? Should it insist 
that international organizations be admitted to Rakhine State 
before any additional assistance is provided? How can the IBRD 
use its leverage or how should it use its leverage?
    Mr. Bethel. Thank you, Senator. I think that is a very 
important consideration. Having been to Burma in the last 
couple of years, I am very familiar with the issue, the 
Rohingya issue, that you are referring to, and it is a very 
challenging and complicated issue.
    It is too early to say, at least in my estimation, what 
should be done until and if I am fortunate enough to be 
confirmed. I do not know that it would be appropriate for me to 
comment on the specific World Bank policy or loans that are 
being administered or not in this case. But the general 
sentiment is one where the World Bank should not be lending to 
countries that either are state sponsors of terror or that are 
committing atrocious acts on their own population generally 
speaking.
    I appreciate the question, and should I be confirmed, I 
would be delighted to work with your committee on addressing 
the issue.
    Senator Merkley. Thank you. I appreciate that.
    And, Mr. Cairncross, when you studied international 
relations at American University I believe----
    Mr. Cairncross. Yes, sir.
    Senator Merkley.--did you specialize in any particular area 
of international relations, Middle East policy, Asian policy, 
national security, any particular aspect?
    Mr. Cairncross. Sure. Both my college undergraduate thesis 
and my graduate dissertation were done in intelligence.
    Senator Merkley. In intelligence. And so in the course of 
that, did you take a lot of courses that were basically related 
to the third world economic development?
    Mr. Cairncross. I did take an international economics 
course at Cambridge, sir.
    Senator Merkley. Focused on developing nations?
    Mr. Cairncross. Developing nations were a portion of the 
course, yes.
    Senator Merkley. And can you share with us if you have had 
the opportunity to live in or--we had the Peace Corps up here 
earlier--any projects you have had in developing nations?
    Mr. Cairncross. No, sir. I have not lived in a developing 
nation. And if confirmed, one of the first things I would plan 
to do is to travel and put my feet on the ground and deal with 
the host government and put my eyes on MCC's work.
    Senator Merkley. Have you currently traveled to any of the 
compact nations?
    Mr. Cairncross. I have not, Senator, but that would be an 
immediate priority of mine.
    Senator Merkley. Do you speak any foreign languages?
    Mr. Cairncross. I do not, sir.
    Senator Merkley. I wanted to ask you a couple questions 
related to Reince Priebus, your work with him as top advisor to 
the chief of staff. And you have already answered these. I know 
the answers, but I think it is valuable to have them on the 
record unless I got the answers wrong.
    Did you have any involvement in the development or 
execution of the President's Muslim ban?
    Mr. Cairncross. I did not, sir.
    Senator Merkley. Did you have any discussions involved in 
the firing of Jim Comey?
    Mr. Cairncross. No, sir.
    Senator Merkley. Have you been interviewed or do you expect 
to be interviewed as part of Robert Mueller's Russia 
investigation?
    Mr. Cairncross. I have not been, and I do not expect to be.
    Senator Merkley. So the MCC is a partner to more 
conventional U.S. aid and development. What do you see as kind 
of the valuable--what do you see as most significant about its 
unique strategy?
    Mr. Cairncross. I think the MCC is so unique because it 
occupies a very singular niche along the development arc of a 
country that it is working with. And so it is really 
transitioning from that USAID portion to a place where a 
country is attempting to build a sustainable economy. And it is 
a need and merit system. So the agency is looking to 
consolidate gains in poor countries who are pursuing good 
policies, pursuing open government, economic freedom for their 
people, and investing into their people. And that singular 
mission, with the staff that I have met and dealt with at the 
MCC who are so impressive--they are very mission-driven. It is 
a very professional organization, and I think that makes it 
very unique.
    I also, Senator, think it is unique in the respect that all 
of its projects are tracked and measured, and that is not just 
some internal MCC white paper. It is measured by independent 
third party agencies and organizations. And then that is put 
online and put out into the public. And that builds, I believe, 
great confidence in the MCC's expenditure of taxpayer dollars 
and helps make the case for U.S. assistance.
    Senator Merkley. Thank you.
    One of the issues that has come up has been reports that 
the eight political positions that are at MCC--that there are 
plans by the White House to expand that to more than two dozen. 
Are you familiar with those plans, and do you have an opinion 
on that?
    Mr. Cairncross. I am not familiar with those plans, 
Senator. I should say I appreciate the time that you and I have 
spent discussing the matter and with your staff. And what I can 
commit to you is that, if confirmed, I would strive to keep the 
MCC a performance-based professional development organization. 
I think both its bipartisan support that it has enjoyed and the 
confidence of its talented staff and maintaining that staff is 
key to the agency's success.
    Senator Merkley. So you would not support expanding the 
political positions beyond the eight positions that there are 
currently on the staff.
    Mr. Cairncross. Correct, Senator. I am not looking to 
politicize the MCC.
    Senator Merkley. Thank you.
    And I thought I should give you a chance to just comment on 
the racial bias lawsuit that was at RNC. It was settled, and I 
assume those were not government funds that it was settled 
with. Those were campaign side funds?
    Mr. Cairncross. That is correct. They were campaign private 
donations to the committee.
    Senator Merkley. And do you support diversity and 
nondiscrimination within the organization?
    Mr. Cairncross. Absolutely, Senator. I believe it is a very 
important--I believe diversity should be a celebrated thing. I 
believe it enriches the work environment. I believe 
particularly in an agency like the MCC it leads to better 
decision-making and, if confirmed, I would seek to grow the 
agency's diversity.
    Senator Merkley. Thank you.
    Senator Young. Well, I want to thank our nominees for 
appearing here today. That concludes our hearing.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record.
    Thank you again to each of you.
    This hearing is adjourned.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to
         Hon. Kevin Edward Moley by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy?

   What has been the impact of your actions?

    Answer. In 2002, while serving as U.S. Ambassador at U.N. Geneva, I 
chaired the U.S. Delegation to the U.N. Human Rights Commission 
(precursor to the Human Rights Council). In 2003, 2004, and 2005, I 
served as Deputy Chair of the U.N. Human Rights Commission. In each 
session of the Human Rights Commission in which I participated we named 
and shamed nations around the world which we believed were violating 
their citizens' human rights.
    Additionally, I served as Chair of an NGO named PCI Global and in 
that capacity have traveled to Africa and Latin America. This has 
reinforced my strong believe that the United States must lead in 
advocating for human rights around the world, including at home.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. Throughout my career, I believe I have demonstrated my 
commitment to promoting the careers of those from backgrounds not 
traditionally represented in the State Department. Ambassador Linda 
Thomas Greenfield, who served with me in Geneva went on to become 
Ambassador to Liberia, Director General of the Foreign Service and, 
most recently, Assistant Secretary of State for African Affairs, Linda 
was kind enough to attend my hearing in support of my nomination. 
Ambassador Joel Danies, recently confirmed to be our Ambassador to 
Gabon, is our first Haitian born American to be confirmed as a United 
States Ambassador; he was my deputy in Geneva and an important advisor 
to me.
    I will continue, as I have throughout my government and private 
sector career, to seek out talented individual from all backgrounds to 
serve with me, and ensure they have the tools to succeed in their 
careers.

    Question 3. What steps will you take to ensure each of the 
supervisors within the Bureau of International Organizations are 
fostering an environment that is diverse and inclusive?

    Answer. If confirmed, I will ensure that all supervisors in the 
Bureau of International Organizations are fostering an environment that 
is diverse and inclusive, and will tolerate nothing less. This will be 
a priority of my leadership, if confirmed.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, to exercise leadership within the 
Department to promote compliance with those laws and rules and to raise 
concerns that I may have through appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, to exercise leadership within the 
Department to promote compliance with those laws and rules, and to 
raise concerns that I may have through appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes companies that have a 
presence abroad. I am committed to ensuring that my official actions 
will not give rise to a conflict of interest. I will divest my 
interests in those companies the State Department Ethics Office deemed 
necessary to avoid a conflict of interest and will remain vigilant with 
regard to my ethics obligations.



                               __________


     Responses to Additional Questions for the Record Submitted to
        Hon. Kevin Edward Moley by Senator Christopher A. Coons

    Question 1. If confirmed as Assistant Secretary of State for 
International Organization Affairs, are you committed to working with 
the Senate and House of Representatives on a bill to review the United 
States' contributions to multilateral organizations, the Multilateral 
Aid Review Act of 2017 (S.1928)?

    Answer. Yes. I am committed to rigorous and effective oversight of 
international organizations. I agree that assessing the use of U.S. 
taxpayer funding to international organizations is essential to ensure 
funding is being used as effectively and efficiently as possible. The 
Bureau of International Organization Affairs coordinates the oversight 
of international organizations that receive U.S. funding directly 
through their governance bodies and indirectly through independent 
review entities. If confirmed, I welcome the opportunity to engage 
closely with the experts at the State Department on how best to 
reinforce this critical oversight, and commit to working with both the 
Senate and the House of Representatives on the bill and its objectives.



                               __________

     Responses to Additional Questions for the Record Submitted to
           Hon. Kevin Edward Moley by Senator Cory A. Booker

    Question 1. Last month, the administration announced that it is 
withholding the bulk-approximately 83 percent-of the United States's 
annual contribution to the U.N. Relief and Works Agency for Palestine 
Refugees (UNRWA). Established by the U.N. General Assembly in 1949, 
UNRWA provides an array of critical services to Palestinian refugees in 
the West Bank, Gaza, Jordan, Lebanon, and Syria.
    Jordan hosts the largest Palestinian refugee population in the 
Middle East: more than two million people in total. I have personally 
visited UNRWA sites in Jordan.
    The services provided by UNRWA are an important safety valve for 
the Jordanian Government, which is also currently hosting more than 
600,000 Syrian refugees and whose resources are spread increasingly 
thin.

   How do these proposed budget cuts risk harming our Jordanian 
        allies, whose cooperation we need on a host of critical 
        security issues, including counterterrorism?
   How does undermining the Jordanian Government serve our strategic 
        interests?

    Answer. If confirmed, I would support the U.S. commitment to Jordan 
and to addressing the needs of the most vulnerable, as demonstrated by 
the voluntary contribution by the United States of $60 million to UNRWA 
in January to keep schools and health systems operating in Jordan, the 
West Bank, and Gaza. Jordan remains one of the United States' closest 
allies. Secretary Tillerson underscored the enduring value of that 
partnership during his February 2018 visit to Jordan when he signed a 
new five-year, $6.375 billion Memorandum of Understanding (MOU) with 
Foreign Minister Safadi. The MOU, along with the U.S.-Jordanian 
partnership on a range of issues, demonstrates the depth and breadth of 
this important bilateral relationship. In addition, since the start of 
the Syrian crisis, the United States, through the Bureau for 
Population, Refugees, and Migration as well as USAID/Food for Peace, 
provided nearly $1.1 billion in humanitarian aid for programs to the 
Syrian response in Jordan to meet the life-saving needs of refugees, 
including food, shelter, and water, in addition to humanitarian 
assistance at the regional level to support Iraqi, Palestinian, and 
other refugees in Jordan.

    Question 2. With regards to the U.N. Organization Stabilization 
Mission in the Democratic Republic of the Congo (MONUSCO), can you 
commit to me that if confirmed, you will not seek or advance any 
proposals to further diminish MONUSCO's size, capacity, or budget in 
the absence of real progress toward greater civilian security on the 
ground?

    Answer. If confirmed, I commit to ensuring that the United States 
carefully reviews and analyzes each U.N. peacekeeping mission as its 
mandate comes up for renewal to evaluate whether it is appropriate to 
the current situation in the country and to determine how it is 
advancing U.S. objectives and interests. I understand that the mandate 
for MONUSCO will be renewed by the U.N. Security Council on March 27, 
and that the U.N. made the decision to reduce MONUSCO's troop strength 
in March 2017 by drawing down underperforming troops in order to 
increase overall effectiveness while sending an important signal to 
other poor performers that they must improve.
    If confirmed, I commit to a rigorous and objective examination of 
each mission, which is vital to ensuring that U.N. peacekeeping 
missions have realistic and achievable mandates which advance political 
solutions, have the support of host governments, and maintain clear 
exit strategies. I look forward to working with you and members of the 
committee, if confirmed, and with other U.N. Security Council members 
to reach consensus on supporting a MONUSCO mission that is responsive, 
flexible, and able to actively and effectively fulfill its mandated 
tasks, especially protecting civilians and supporting the electoral 
process.

    Question 3. In your view, has the U.N. Security Council over-
burdened MONUSCO--or any other U.N. peacekeeping operations--with too 
unrealistic or cumbersome of a mandate? If so, how will you seek to 
address this problem if confirmed?

    Answer. The Secretary-General and MONUSCO leadership have 
consistently called for greater streamlining of the Mission's tasks. If 
confirmed, I will work with the Security Council, other U.N. member 
states, and the U.N. to address critical structural, bureaucratic, 
operational, and political challenges to maximize the effectiveness of 
MONUSCO and of all U.N. peacekeeping missions. This effort would 
include seeking opportunities for U.N. humanitarian and development 
agencies to assume tasks better suited to their expertise, seeking to 
eliminate extraneous capabilities or programming, and working to 
institutionalize a culture of performance at the U.N. in which only the 
highest performing troops and police are deployed to U.N. missions.
    To date, with an authorized troop ceiling of 16,215 military 
personnel, 660 military observers and staff officers, and 1,441 police, 
and an annual budget of $1.1 billion, MONUSCO remains one of the 
largest and most expensive U.N. peacekeeping missions. There has been a 
peacekeeping presence in the DRC since 1999, and over the years the 
U.N. Security Council has added numerous tasks, which have diverted 
resources from the core mission of civilian protection and 
stabilization. MONUSCO is stretched to capacity to fully execute its 
mandate, and the DRC Government at times actively undermines the 
Mission. MONUSCO also faces operational challenges stemming from the 
size of the country, the lack of infrastructure, the lack of capacity 
of the national security forces, the number of armed groups, and the 
unwillingness of some troop contributors to conduct offensive 
operations. If confirmed, I look forward to further reviewing these and 
other issues to ensure the MONUSCO mandate is appropriate and 
effective.

    Question 4. What will you do to ensure that MONUSCO is best 
positioned to confront the numerous serious challenges facing the 
country ahead of the planned elections in December 2018?

    Answer. In the U.N. Security Council, the United States has called 
for MONUSCO to be more responsive to the needs of the Congolese people, 
and to adapt the Mission when necessary as the political landscape 
changes. If confirmed, I will continue to urge MONUSCO to prioritize 
the protection of civilians and electoral support tasks, to direct 
budgetary resources so they are aligned with these priorities, and to 
continue reporting to the U.N. Security Council on the progress of 
electoral timelines and on implementation of the December 31, 2016 
Agreement.
    I commit to work with you to ensure that the United States engages 
its international partners, the U.N., and the DRC Government to support 
the conduct of peaceful, inclusive, timely, and credible elections in 
2018. Due to the lack of basic infrastructure in the DRC and its sheer 
size, elections will not be possible without the technical, logistical, 
political, and security support of MONUSCO. The U.N. Security Council 
prioritized MONUSCO's electoral support task, including supporting 
implementation of the December 31, 2016 Agreement, during the 2017 
mandate renewal. I understand that MONUSCO meets regularly with the DRC 
Government, opposition, and the Independent National Electoral 
Commission (CENI) to advance the Agreement, with a key focus on 
promoting implementation of its confidence-building measures.

    Question 5. What can be done to ensure that peacekeeping troop 
contributors can adequately protect themselves from attacks like the 
one that occurred in December?

    Answer. If confirmed, I commit to reviewing how we can do more to 
ensure peacekeeping forces can adequately protect themselves. As your 
question highlights, the past several years have seen a dramatic 
increase in fatal attacks on U.N. peacekeepers. The December 7, 2017 
attack on MONUSCO in North Kivu was the worst attack on U.N. 
peacekeepers in recent history, resulting in the death of 15 U.N. 
peacekeepers while wounding more than 50 others. Today, as U.N. 
peacekeepers are asked to do more in increasingly complex and volatile 
environments, the U.N. Security Council owes it to these men and women 
to work hard to reform the U.N. system as urgently as possible.
    The Secretary-General's recently published ``Review of Peacekeeping 
Fatalities Due to Acts of Violence'' highlighted the link between the 
safety and security of peacekeepers and accountability for performance, 
demonstrating that underperformance can be fatal. If confirmed, I will 
work to institutionalize a culture of performance and accountability at 
the U.N. in which only the highest performing troops and police are 
deployed to U.N. missions. The lives of peacekeepers and those they are 
mandated to protect depend on it.
    Increasing the availability of objective information to support 
performance-based decision-making is an important part of making 
missions more effective on the ground and enhancing the safety and 
security of peacekeepers. This performance-based data will also help 
the United States allocate training and equipment to troop- and police-
contributing countries to better support each country's needs and 
better address the effectiveness of U.N. peacekeeping.



                               __________


     Responses to Additional Questions for the Record Submitted to
            Hon. Josephine Olsen by Senator Robert Menendez

The Legacy of Kate Puzey's Murder
    I understand that Kate Puzey's death weighs heavily on you and I 
appreciate the concern that you have expressed, throughout your 
confirmation, for this tragedy. I would still like a better 
understanding of the following:

    Question 1.  At the time, what was your understanding and 
involvement in the Peace Corps' handling of the information and events 
surrounding Kate Puzey's attempts to report on the sexual abuse she 
witnessed during her assignment in Benin?

    Answer. I had no knowledge or involvement in Peace Corps' handling 
of the information surrounding Kate Puzey's attempts to report on the 
fraternization and sexual abuse she heard about during her assignment 
in Benin.

    Question 2.  At what point did you become aware of Kate Puzey's 
situation?

    Answer. I became aware of Kate's murder on/about March 12, 2009. 
After receiving preliminary information of the events that took place 
in Benin, on March 24, 2009 I asked Peace Corps' Inspector General to 
conduct a thorough investigation into the circumstances surrounding the 
matter. The Inspector General issued its report on May 7, 2009. I 
developed an understanding of the events in Benin upon receipt of the 
Inspector General's report.

    Question 3.  As Acting Director, did you administer any 
disciplinary action to anyone along the chain of command who mishandled 
Kate Puzey's attempts to report abuse?

    Answer. In 2009, Peace Corps ended employment and contractual 
relations with individuals in Benin who were involved in the management 
of or mishandling of Kate's communications and individuals in Benin 
arrested in connection with her murder.

    Question 4.  How should the Peace Corps have handled the entire 
case surrounding Kate Puzey differently?

    Answer. In retrospect, I believe Peace Corp Benin staff should have 
paid more immediate attention to the concerns raised by Kate; should 
have taken immediate measures to ensure Kate's safety pending inquiries 
and corrective actions; and, most importantly, should have taken steps 
to handle Kate's communications with more discretion and care.

    Question 5.  Are you confident that the necessary reforms have been 
made to prevent such an incident (i.e. Peace Corps volunteers or 
employees who want or need to help, or who want to report abuse, and 
protections for whistleblowers) from happening again?

    Answer. Yes. The reforms and policy changes established and 
implemented in response to the Kate Puzey Peace Corps Protection Act of 
2011, including those expressly addressing Volunteer confidentiality 
and whistleblowing, provide safeguards against similar incidents.

    Question 6.  As the Acting Director of the Peace Corps at the time 
of these incidents, what responsibility do you take for how the Peace 
Corps handled the incidents surrounding Kate Puzey?

    Answer. As Acting Director at the time of Kate's murder, I was 
responsible for all matters at the Peace Corps. However, as I explained 
above, I was not aware or involved in the events leading up to Kate's 
tragic death. While I continue to mourn the loss of Kate, I know that I 
ordered a timely investigation into the matter and took corrective 
actions where warranted. If I am confirmed, I assure you I will 
vigorously advance and, where appropriate, improve upon all measures to 
ensure the safety and health of Peace Corps volunteers.
Maximizing Volunteer Skillsets
    The Peace Corps attracts highly talented and motivated individuals 
who want to put their skills to work to demonstrate the U.S.'s goodwill 
and generosity. It is important for the Peace Corps to address 
development needs by utilizing volunteers with most useful skillsets.

    Question 7.  How are volunteers' expertise tailored to their Peace 
Corps assignments?

    Answer. A considerable amount of work goes into matching Peace 
Corps Volunteer's skills, among other attributes, with where they will 
have the most impact while serving. A combination of Peace Corps' deep 
understanding of the development needs of host countries, targeted 
recruiting, knowledge of priorities at the community level, programming 
and training play critical roles in the agency's unique ability to 
precisely match volunteers with work assignments.

    Question 8.  What efforts does the Peace Corps make to recruit 
volunteers with specific skills sets based on specific country needs?

    Answer. Peace Corps' Office of Volunteer Recruitment and Selection 
works to recruit potential applicants who possess the skills that host 
countries have identified are necessary to complete specific projects. 
Peace Corps incorporates this information into its annual recruitment 
strategy and implementation plan. Peace Corps also has the ability to 
modify its recruitment outreach to adapt to new requests.

    Question 9.  Understanding that the Peace Corps provides volunteers 
based on proposed needs as determined by host countries, what influence 
or advice does the Peace Corps provide to host countries on accepting 
volunteers with specific expertise that could help address specialized 
needs in certain communities?

    Answer. Peace Corps Country Directors and program staff maintain 
close working relationships with host country governments and partner 
agencies and are deeply versed in with the development needs in 
countries where the agency operates. Peace Corps works within the 
parameters of six program sectors: education; health; community and 
economic development; agriculture; youth; and environment, and places 
volunteers in sites according to community need and technical 
skillsets.

    Question 10.  Do you believe it to be appropriate for the Peace 
Corps to advise host countries on their development needs?

    Answer. Peace Corps does not advise host countries on their 
development or other needs. Rather, the agency works closely with 
stakeholders in the above mentioned six programming sectors to 
determine where Peace Corps volunteers can best help countries meet 
their development needs.
Opening and Terminating Peace Corps Missions
    During your tenure as Acting Director the Peace Corps you opened 
several new missions.

    Question 11.  What is the operational status of the missions you 
opened during your time as Acting Director of the Peace Corps?

    Answer. During my time as Acting Director, Peace Corps did not open 
any new posts.

    Question 12.  Do you intend, or want, to open new Peace Corps 
missions?

    Answer. If confirmed, I will conduct a full country portfolio 
review to both make certain that Peace Corps is sending volunteers to 
interested countries where they are most needed and where they stand 
poised to achieve greatest impact.

    Question 13.  If so, how would you allocate resources, based on the 
President's FY 19 Budget request for Peace Corps that represents a 3.4 
percent reduction from FY 17 enacted amounts, to make this possible?

    Answer. The country portfolio review will ensure that Peace Corp 
volunteers are working in countries where they are delivering the best 
return on investment for American taxpayers.

    Question 14.  In any instance where the Peace Corps finds it needs 
to terminate missions, will you commit to informing Congress about 
these decisions and to the development and execution of a strategic and 
gradual process to ending missions?

    Answer. Yes, I will most certainly inform Congress.
Diversity
    Research from private industry demonstrates that, when managed 
well, diversity makes business teams better both in terms of creativity 
and productivity.

    Question 15.  What steps will you take to ensure that supervisors 
and managers within the Peace Corps are fostering workplaces that are 
diverse and inclusive?

    Answer. The Peace Corps actively supports a culture of inclusion 
that builds on the strengths of the diversity of America and of the 
countries where volunteers serve. I will work to ensure that the agency 
continues to reflect the population of the United States.

    Question 16.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Peace Corps?

    Answer. Increasing the number of minority Volunteer applicants was 
an objective of the agency's 2014-2018 strategic plan. Since then, the 
agency has achieved its goal of increasing the number to 35 percent. If 
confirmed, I will continue to work to strengthen diversity and 
inclusion across the agency.



                               __________


     Responses to Additional Questions for the Record Submitted to
           Hon. Josephine Olsen by Senator Benjamin L. Cardin

Human Rights
    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Since taking my oath as a Volunteer, I have been committed 
to upholding Peace Corps' mission and three goals. As the director of 
the University of Maryland, Baltimore Center for Global Education 
Initiatives, I taught international social work, global social policy, 
and issues in global women's and children's health. As I stated in my 
confirmation hearing, my passion is supporting the Peace Corps mission 
to work directly with disadvantaged populations overseas and better the 
lives of individuals in the communities and countries where its 
volunteers serve.
Sexual Assault
    Question 2.  What additional work is necessary to advance Peace 
Corps' Sexual Assault, Risk Reduction, and Response Program?

    Answer. Peace Corps can continue to be more proactive in providing 
information about sexual assault prevention and awareness to 
volunteers, staff, and counterparts. The agency can continue to advance 
the impressive work of its Sexual Assault Risk Reduction and Response 
Program (SARRR) and Office of Victim Advocacy (OVA) by continually 
evaluating the impact of its efforts and making necessary improvements 
accordingly.

    Question 3.  How will you approach redefining the Peace Corps 
culture to be a trauma-informed organization, specifically as it 
relates to sexual assault?

    Answer. I believe the Peace Corps is committed to continuing its 
evolution as a trauma-informed agency. It is my understanding that 
SARRR and OVA staff have the expertise to and are delivering trauma-
informed care at both individual and systems levels. If confirmed, I 
will support the agency's endeavors to use this lens in all aspects of 
the program, from policy development to training to individual victim 
response.

    Question 4.  Understanding that you are committed to establishing a 
culture of safety within the Peace Corps, how should the Peace Corps 
pond to Peace Corps Volunteer reports of living or working in hostile 
environments where they are experiencing physical, mental, or sexual 
abuse or harassment?

    Answer. There is no higher priority for the Peace Corps than the 
safety and security of its volunteers. I am fully committed to working 
to ensure that the agency further upgrades and implements 
comprehensive, Volunteer-centered policies for safety and security, 
including thorough procedures to train and guide staff who respond to 
harassment or abuse reports. I will work to ensure that volunteers have 
the training and information they need to report all types of safety 
and security violations, and staff have the resources they need to 
respond.
Diversity
    Question 5.  While the Peace Corps has done an admirable job to 
improve the diversity of its recruits, including increasing recruitment 
at Historically Black Colleges and Universities, what steps do you 
think the Peace Corps must take to reduce attrition the among get 
accepted recruits who ultimately decide not to take their Peace Corps 
assignment?

    Answer. The agency can continue to advance efforts to strengthen 
its culture of inclusion and openness in fielding and supporting a 
Volunteer corps that reflects the rich diversity of our country. This 
includes the integration of comprehensive intercultural competence, 
diversity, and inclusion, as noted in the agency's 2018-2022 Strategic 
Plan. In addition, the agency can take proactive steps to reduce 
minority attrition rates by providing personal attention to and 
comprehensive information to interested candidates about the long-term 
benefits of Volunteer service, including the competitive career skills 
they can develop while serving as a Volunteer. Peace Corps can also 
provide more support and services to returned Peace Corps volunteers to 
help them prepare for jobs in multiple fields and sectors, tapping into 
the network of more than a quarter million returned volunteers.

    Question 6.  What do you believe are the barriers most accepted 
volunteers who opt out of accepting an volunteer assignment, or drop 
out somewhere along the application and acceptance process, and what 
should the Peace Corps do to alleviate these barriers of entry into the 
Peace Corps?

    Answer. More research and analysis remains to be done. However, 
often accepted candidates withdraw because of personal reasons, 
alternative job opportunities, presumed costs associated with service, 
and health and safety concerns. Peace Corps can always take more action 
to help ensure Americans from all backgrounds are able to serve. If 
confirmed, I commit to working with you, your staff, and other Members 
of Congress to find solutions to the barriers that impact accepted 
applicants' decision to withdraw.

    Question 7.  If confirmed, will you condemn and oppose policies and 
practices that are derogatory and discriminatory on the basis of race, 
religion, nationality, gender, sexual orientation, or gender identity?

    Answer. Yes. I will comply with anti-discrimination laws and 
regulations to promote a professional work environment.
Care for Returned Volunteers
    Question 8.  Will you commit to working with the Department of 
Labor to improve the handling and dispensation of healthcare benefits 
to return volunteers, especially to those return volunteers who become 
disabled as a result of their service?

    Answer. If confirmed, I look forward to working closely with the 
Department of Labor and other stakeholders to ensure returned Peace 
Corps volunteers who suffered a disability while serving have the 
appropriate information to file a claim with the Department of Labor. 
Additionally, I will support Peace Corps' efforts to streamline the 
filing and adjudication process. Promoting health services for Peace 
Corps volunteers and returned volunteers will be one of my priorities.



                               __________


     Responses to Additional Questions for the Record Submitted to
                   Erik Bethel by Senator Todd Young

    Question 1.  The U.S. Alternate Executive Director represents the 
United States Government as the largest shareholder of the World Bank. 
This individual is charged with conveying U.S. positions and priorities 
to World Bank management and other board members. In your view, from a 
U.S. perspective, should the World Bank continue to lend money to 
China? If so, what is the rationale for supporting World Bank lending 
to one of the world's largest economies and a leading strategic 
competitor of the United States?Over the last several decades, the 
geopolitical and economic landscape has changed considerably. One of 
the most visible transformations has occurred in China--a country that 
currently has the world's second-largest GDP. Given the marked changes 
in China's income and financial capacity, including ready access to 
international capital markets and domestic resources, it would be wise 
to adjust World Bank lending policies accordingly. In particular, 
China's role needs to shift from borrower to donor.

    Answer. Currently, the United States only supports lending to China 
that addresses basic human needs in the country's poorest regions, and 
if confirmed, I will continue to ensure that U.S. legislation 
concerning World Bank lending to China is followed. While the World 
Bank's high standards and knowledge can provide important benefits to 
people in the poorest regions of China, I will work to encourage the 
World Bank to do more to provide these benefits through non-lending 
activities, such as reimbursable technical assistance.

    Question 2.  What is your view on the ``graduation'' of countries 
from International Bank for Reconstruction and Development (IBRD)-
lending status? How should the World Bank consider ending its formal 
lending relationship with upper middle-income countries? How does the 
current graduation criteria apply to China?

    Answer. The World Bank should focus its resources on poorer 
countries with less access to other sources of finance, and where its 
work can have the greatest impact on growth and poverty reduction. 
Furthermore, ``graduation'' should be viewed as a status symbol that 
countries embrace, as it would indicate a successful implementation of 
sound economic policies.
    If confirmed, I will press the World Bank to more rigorously apply 
its Graduation Policy. This entails: (1) that the World Bank conduct 
in-depth and credible assessments of a given country's key institutions 
in order to understand any gaps to graduation; and (2) focus any 
activities within the countries that have crossed the income threshold 
on those remaining gaps to graduation. I will also push the World Bank 
to set a limit on the amount of overall IBRD finance that can be 
allocated to countries above the graduation income threshold, thereby 
reserving scarce development resources for the countries that need the 
most support.
    In 2016, China crossed the graduation-eligible income threshold 
(currently set at $6,895 GNI per capita for FY 2018). Once a country 
crosses this income threshold, the World Bank is expected to begin 
graduation discussions to assess a country's ability to access external 
capital markets on reasonable terms and its progress in establishing 
key institutions for economic and social development.

    Question 3.  What in your view are the strategic consequences of 
the Asian Infrastructure Investment Bank (AIIB) for the World Bank?

    Answer. The AIIB presents both a risk and an opportunity to the 
World Bank. There are substantial infrastructure needs in Asia, and the 
AIIB can play a role in addressing this financing gap. However, these 
investments must be conducted using high standards for environmental 
and social protections as well as procurement. Furthermore AIIB-
financed projects should not place an unsustainable debt burden on the 
recipient country.
    World Bank projects follow the high standards that we view are 
essential. One method of increasing financing available for 
infrastructure while at the same time addressing the social 
environmental and governance issues mentioned above, is by allowing the 
AIIB to provide co-financing to World Bank designed and managed 
projects. This can be a means of effectively channeling the AIIB's 
financial resources in a responsible manner, while ensuring that the 
World Bank's high standards are applied.

    Question 4.  The World Bank has initiated and supported a number of 
programs in Yemen. If confirmed, will you ensure the World Bank keeps 
me and my office up to date on programs in Yemen and how we can be 
helpful?

    Answer. Yes. If confirmed I will ensure that the WB keeps you and 
your office up to date on progress.

    Question 5.  Based on your preparation for this hearing and your 
experience in investment banking, would you please describe how the 
World Bank uses bonds and insurance to finance development? With 
respect to the use of bonds and insurance mechanisms to finance 
development, what lessons do you believe we can draw from the World 
Bank's experience with U.S. foreign assistance? If confirmed, will you 
ensure the World Bank keeps me and my office up to date on these and 
other innovations for financing development?

    Answer. The principal means by which the World Bank uses bonds to 
finance development is by using its triple-A credit rating to leverage 
shareholder equity by up to five times in international capital markets 
and using the proceeds for lending to developing countries. The 
Multilateral Investment Guarantee Agency (MIGA) is the World Bank's 
chief provider of investment guarantees and political risk insurance 
for non-commercial risk.
    As you note, however, the World Bank has also increasingly been 
using innovative financial products to spur growth and support public 
and private sector development. Several examples include: (1) the use 
of catastrophe bonds to help Mexico and several Latin American 
countries to protect against fiscal and macroeconomic impacts of 
natural disasters; and (2) the Pandemic Emergency Facility managed by 
the World Bank that uses financing from Germany and Japan to provide 
insurance for low-income countries in the event of an outbreak of a 
virus. These examples indicate the potential for using foreign 
assistance to catalyze private and donor finance, though many of these 
innovations are relatively new and the models are untested.
    If confirmed, I will work to keep you up to date on the World 
Bank's use of innovative financing for development purposes.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Sean Cairncross by Senator Robert Menendez

Anti-Muslim Policies
    Indonesia is the recipient of the largest MCC compact, and has the 
largest Muslim population in the world.

    Question 1.  How do you feel then-candidate Trump's call for ``a 
total and complete shutdown of Muslims entering the United States'' in 
December of 2015 and Executive Orders 13769 and 13780 effects the U.S. 
Government and MCC's work in Indonesia and other countries with large 
Muslim populations?

    Answer. The MCC compact in Indonesia closes out in April of this 
year, and my understanding is that it has been largely very successful. 
In particular, I understand that the nutritional anti-stunting 
components and the procurement modernization components of the compact 
have and will continue to yield positive results. I am unaware of any 
affects that the above-referenced comments or executive order have had 
concerning the Indonesian compact or compacts in any other MCC 
countries.
    I believe that MCC is an excellent representative of the U.S. 
Government's foreign engagement efforts--providing hundreds of millions 
of U.S. taxpayer dollars on concrete projects in partner countries to 
reduce poverty through economic growth. If confirmed, I intend to 
continue MCC's track-record of helping foreign nations build their 
capacity for sustainable economic growth.

    Question 2.  What is your personal opinion of then-candidate 
Trump's statement and of EO 13769

    Answer. With respect to the above referenced comments, I do not 
support such a shutdown. With respect to the above referenced EO, I 
defer to experts in homeland security with respect to travel security 
matters.

White House Role
    You have worked closely with the chiefs of staff of the White House 
going back to the presidential transition immediately following the 
November 2016 presidential elections.

    Question 3.  What was the scope of your responsibilities as the 
senior advisor to White House Chief of Staff Reince Priebus beginning 
in January 2017?

    Answer. I assisted Mr. Priebus in attempting to coordinate 
activities of various White House components, and served as Mr. 
Priebus's proxy on the Deputies and Principals committees of the 
National Security Council.

    Question 4.  Did your responsibilities change when General John 
Kelly assumed the position of White House Chief of Staff?

    Answer. Yes; I no longer attended National Security Council 
meetings, including those meetings referenced in response to (a) above.

    Question 5.  What was, or is currently, your role in hiring White 
House staff, or in setting or implementing the White House's security 
clearance policy?

    Answer. At no time have I had a role in hiring White House staff or 
in setting or implementing the White House security clearance policy.

    Question 6.  As senior advisor to the White House chief of staff, 
were you aware that senior White House staff, including Rob Porter and 
Jared Kushner, had not been granted permanent security clearances as of 
the end of 2017?

    Answer. No.

    Question 7.  What discussion have you had with Reince Priebus or 
John Kelly about the inability of senior White House staff needing 
access to highly-classified information, but being unable to obtain 
permanent security clearances?

    Answer. I have not discussed this matter with either Mr. Priebus or 
General Kelly.

    Question 8.  What was the nature of your discussions or advice on 
these matters?

    Answer. I have not discussed this matter with either Mr. Priebus or 
General Kelly.

    Question 9.  Through your work within the White House, were you 
aware of the spousal abuse allegations against former staff secretary 
Rob Porter?

    Answer. No.

    Question 10.  Did you ever discuss those allegations with Reince 
Priebus, John Kelly, or any other White House staff?

    Answer. No.

    Question 11.  If aware, were you concerned about those allegations?

    Answer. [not applicable].

    Question 12.  Do you believe the White House has handled the manner 
properly?

    Answer. I believe it appropriate that Mr. Porter no longer works at 
the White House, and that steps have been taken to improve the security 
clearance process.
Public Statements on Acorn as a Political Spokesperson
    You have spent most of your career as political operative within 
the RNC, including serving as a spokesperson for the RNC and for 
Republican candidates. In 2008, in a report produced by NPR, you stated 
that ACORN, an organization that worked to register voters in minority 
neighborhoods, was ``a quasi-criminal, Democrat-affiliated organization 
that willfully and openly breaks the law, is a clear and present danger 
to the integrity of the election process, and constitutes a threat to 
public safety.'' Furthermore, you once stated that ACORN's filing of 
lawsuits alleging voter suppression was ``an abomination that attempts 
to subvert the very foundation on which America stand.''

    Question 13.  Do you still hold the opinion that ACORN is ``a 
quasi-criminal, Democrat-affiliated organization that willfully and 
openly breaks the law, is a clear and present danger to the integrity 
of the election process, and constitutes a threat to public safety?''

    Answer. I no longer believe that ACORN is any of the above.

    Question 14.  If so, would you please qualify these beliefs?

    Answer. [not applicable].

    Question 15.  Why do you believe that appealing to the U.S. court 
system about perceived election irregularities constitutes ``an 
abomination''?

    Answer. I do not recall the specifics of this particular matter; 
however, I do not believe that a legitimate lawsuit to fight voter 
suppression is a negative.

    Public Statements on Voter Fraud as a Political Spokesperson: You 
once defended a Republican campaign direct mailing that went out to 
elderly voters in Florida with a ``voter registration tracking form'' 
which listed their affiliation as ``unconfirmed.'' You said that the 
mailer was ``a fundraising gimmick'' that was sent to an internal 
mailing list. Yet, according to the St. Petersburg Times, the mailer 
went to numerous life-long Democrats, and Florida's Republican 
Secretary of State ``called the mailing `unfortunate' because of its 
potential to make some voters question the validity of their 
registration.''

    Question 16.  Do you agree with Florida's then-Secretary of State 
that telling elderly voters that their voter registration is 
``unconfirmed'' could lead to confusion regarding their voter 
registration status?

    Answer. I do not recall the specifics of this particular matter; 
however, if the St. Petersburg Times note referenced above is correct, 
then I do agree with Florida's then-Secretary of State.
Public Statements on Voter Suppression as a Political Spokesperson
    You once stated that a Democratic campaign flyer alleging vote 
suppression by Republican entities ``creates uncertainty and fear among 
the voting public, which itself amounts to nothing less than vote 
suppression.''

    Question 17.  In your opinion, how is providing information warning 
about potential vote suppression is equivalent to vote suppression?

    Answer. I do not recall the specifics of this particular matter; 
however, I do not believe that a legitimate notice concerning voter 
suppression is a negative
Defendant in a Racial Discrimination Case
    You were a defendant in a civil action in 2010 against the National 
Republican Senatorial committee (NSRC) that alleged discrimination 
based on race and a hostile work environment based on race. According 
to the plaintiff's complaint, you berated the plaintiff after being 
told by your assistant that he had not ``hopped to'' when instructed to 
clean up trash after an event, which was not in his scope of duties, 
telling him that ``if he did not straighten up, he would lose his 
home.'' In your meeting with committee staff, you said that you 
terminated the defendant because of complaints from female employees 
and problems with the defendant's honesty. The defendant had worked at 
the NSRC for 15 years before you terminated him.

    Question 18.  Do you maintain the plaintiff's allegation to be 
false?

    Answer. Yes.

    Question 19.  Were similar complaints submitted during those 15 
years or did they only surface after your arrival at the NSRC?

    Answer. There had been at least one incident before 2009 of which 
we became aware.

    Question 20.  If the latter, do you have an explanation for why the 
employee's behavior only attracted complaints after you began working 
at the NSRC?

    Answer. [No Response.]

    Question 21.  Have there ever been any other workplace-related 
complaints against you or any employees under your supervision? If so, 
how were these complaints resolved?

    Answer. No.

    Question 22.  Do you commit to ensuring an open and fair workplace, 
free from hostility and discrimination?

    Answer. Yes.

    Question 23.  Can you provide examples from your past management 
experience when you have created and helped maintain such an open 
workplace?

    Answer. I have required personnel to take anti-harassment and anti-
discrimination training in past organizations. I have regularly 
encouraged employees to raise any workplace issues with their 
supervisors, designated point people, and other agency leaders, and, 
during my time as counsel to organizations, I would regularly meet with 
personnel at all levels to ensure that the workplace environment was 
healthy.
    I have also written, reviewed, and updated organizational policies 
and the procedural methods for dealing with potential workplace issues.
Robert Blau
    On February 26, I sent a letter to the Acting MCC CEO which raised 
my concerns about MCC's Vice President, Department of Compact 
Operations, Robert Blau. As you know, Mr. Blau made several troubling 
comments during an all-hands meeting last June, comments which 
reportedly left MCC's dedicated and professional staff shaken and 
disturbed. During the meeting, Mr. Blau made comments that raise 
questions about his approach to and treatment of employees based on 
their political leanings, sexual orientation, and national origin. 
Furthermore, in the over eight months since the meeting, Mr. Blau has 
reportedly made repeated inappropriate remarks to staff, including 
inquiries about employees' ethnic backgrounds, with an apparent focus 
on minorities, and expressed his discomfort with promoting diversity.

    Question 24.  Do you agree that Mr. Blau's comments were 
inappropriate and offensive to MCC employees?

    Answer. Yes.

    Question 25.  If reports that MCC staff have filed several 
complaints against Mr. Blau because of his comments with regards to 
race, gender, and diversity are confirmed, do you commit to review all 
complaints made against Mr. Blau?

    Answer. Yes.

    Question 26.  If so, and you find upon review of the complaints 
that Mr. Blau's behavior has reflected poorly on the MCC's reputation 
for professionalism and has been detrimental to the morale of MCC 
employees, will you take appropriate action including, if necessary, 
terminating Mr. Blau's employment at the MCC?

    Answer. If so, yes.
Public Comments made About Sen. McCaskill
    In 2012 you said of Senator Claire McCaskill that her ``sense of 
entitlement is troubling'' and that ``it seems Senator McCaskill 
doesn't believe the rules apply to her.'' And in 2011 you said that a 
revision to her FEC report ``calls into question the fact whether you 
can believe what she says.''

    Question 27.  Do you still hold these opinions of Senator 
McCaskill?

    Answer. I do not. I believe that during the 2012 cycle Senator 
McCaskill made a public and good faith effort to appropriately address 
any such 2012 cycle issues.
Diversity and Combatting Hostile Work Environments
    Research from private industry demonstrates that, when managed 
well, diversity makes business teams better both in terms of creativity 
and productivity.

    Question 28.  What steps will you take to ensure that supervisors 
and managers within MCC are fostering an environment that's diverse and 
inclusive?

    Answer. If confirmed, I will set a tone from the top of the agency 
that diversity is critical to effective work and highly valued, 
enriches the work environment, and leads to better decision making. 
Among other things, I will participate in diversity and inclusion 
refresher training sessions and will require that all senior leadership 
participate along with me.

    Question 29.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the MCC?

    Answer. If confirmed, I will support such staff--and promote their 
inclusion throughout the various MCC decision making processes.

    Question 30.  As a possible official of the Trump administration, 
will you condemn and oppose policies and practices that are derogatory 
and discriminatory on the basis of race, religion, nationality, gender, 
sexual orientation, or gender identity?

    Answer. Yes.

    Question 31.  What will you do to ensure that statements by the 
Trump campaign and transition teams that are racist, xenophobic, 
misogynistic, or otherwise denigrate human rights and support abuses, 
will not become government policy?

    Answer. If confirmed I intend to keep MCC focused on its mission of 
reducing poverty through economic growth in the poorest, best governed 
countries in the world.

    Question 32.  Will you uphold the rights of all persons to equality 
and freedom from discrimination, and call on Americans to refrain from 
discrimination of any sort?

    Answer. Yes.
Mr. Robert Blau
    It is my understanding that many of the complaints about Mr. Blau's 
comments have not been reported through the MCC ethics office or other 
formal channels, but were relayed verbally to senior staff, who then 
discussed them with Mr. Blau in person. These complaints were also not 
included in Mr. Blau's performance evaluation. As such, there is 
apparently no written record cataloguing the number and nature of the 
alleged inappropriate and offensive comments that Mr. Blau has made to 
MCC staff over the past nine months.
    Question 33.  Given the lack of an official record of staff 
complaints, please explain any proactive steps you plan to take to 
collect, review, and evaluate concerns about Mr. Blau's comments and 
behavior.If confirmed, I have committed to further review of any and 
all complaints made against Robert Blau, verbal or written, and that I 
will take all appropriate steps to address this matter. This includes 
conversations with management and staff to fully understand the context 
and concerns; as well as a conversation with Robert Blau. If confirmed, 
I commit to working with the team at MCC in this review process.
Elliot Broidy
    Question 34.  During your recent tenure at the Republican National 
committee (RNC), did you work in any capacity with Elliot Broidy, who 
then served as vice chairman of the Trump Victory Fund, a joint 
fundraising committee between the Trump campaign and the RNC? If so, 
please describe the nature and extent of your interactions and 
communications with Mr. Broidy.

    Answer. I did not work with Mr. Broidy during the 2016 election 
cycle.

    Question 35.  During your time in the White House, did you ever 
attend any meetings with Mr. Broidy or arrange any meetings between Mr. 
Broidy and other White House personnel? If so, please describe the 
nature of these meetings, including the date, who attended, and what 
was discussed.

    Answer. No.



                               __________


     Responses to Additional Questions for the Record Submitted to
             Sean Cairncross by Senator Benjamin L. Cardin

Human Rights
    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. While protection of human rights and democracy are very 
important to me personally, they have not been a particular emphasis of 
my professional career to date. If confirmed, I look forward to 
promotion of these core beliefs as CEO of MCC.

    Question 2.  What are the most pressing human rights concerns in 
MCC compact and threshold countries? What are the most important steps 
you expect to take--if confirmed--to advance human rights and democracy 
in those countries? What do you hope to accomplish through these 
actions?

    Answer. If confirmed, I will seek to maintain and further 
strengthen MCC's commitment to partnering only with countries committed 
to just and democratic governance and to controlling corruption. The 
scorecard remains a clear hurdle for countries to meet in order to be 
considered for compact selection. The Democratic Rights and Control of 
Corruption `hard hurdles' provide a strong screening mechanism as well.
    That said, there is room for growth in many, if not all, of MCC 
compact and threshold countries which is why MCC countries are held to 
a clear standard throughout the life-cycle of a compact and must 
maintain their eligibility at all times. MCC can and has suspended or 
terminated assistance to countries that have failed to maintain their 
commitment to good governance and, if confirmed, I will ensure that MCC 
continues to do so.

    Question 3.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in MCC compact and 
threshold countries advancing human rights, civil society and democracy 
in general?

    Answer. As mentioned above, there is room for improvement on human 
rights, civil society, and democracy in many, if not all, of MCC 
compact and threshold countries. Often policy and institutional reforms 
can take time to come to fruition, particularly in developing countries 
and nascent democracies. I believe MCC maintains tremendous leverage in 
partner countries to incentivize advancements in these key areas and to 
hold partners to a high standard throughout the development and 
implementation of compact or threshold program. MCC's leverage stems 
not only from the specific program, but MCC's ability to serve as a 
bridge to the private sector, further mobilizing capital and bringing 
resources to bear. Finally, as previously mentioned, MCC can and has 
suspended or terminated assistance to countries that have failed to 
maintain their commitment to good governance which increases the 
agency's leverage.

    Question 4.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in MCC compact and threshold countries?

    Answer. Yes.
Leadership Vision
    Question 5.  What is your vision for advancing MCC as a leading 
economic development agency?

    Answer. I intend to maintain MCC's record of data-driven, 
transparent, and mission focused model and seek to broaden MCC's 
engagement with (1) other U.S. Government agencies; and (2) private-
sector parties to maximize MCC impact in partner countries.
    I also intend to leverage the incentive power that MCC has in 
attempting to achieve concrete policy results both before eligibility 
selection and also during the compact development and implementation 
phases.

    Question 6.  Aside from authorization of concurrent and subnational 
compacts, what do you see as the top policy reforms necessary to 
enhance MCC's reach? With the rise of more middle income countries in 
the developing world, the world's poor will be increasingly located in 
countries outside MCC's current focus. How might the MCC respond to 
this changing face of global poverty?

    Answer. If confirmed, I intend to look for new ways to leverage 
MCC's presence in developing countries through enhanced partnerships 
and engagement with the private sector. I also see room for further 
collaboration with OPIC and potentially a new International Development 
Finance Corporation, if enacted.
    Finally, I understand MCC has done considerable analysis about the 
agency's country candidate pool and I look forward to reviewing in 
depth and consult further with stakeholders, if confirmed, before 
determining the best course of action and specific policy proposals.

    Question 7.  What is your vision for the Threshold program?

    Answer. While I look forward, if confirmed, to delving into the 
details of the threshold program and possible next steps, I believe 
that the threshold program currently is an important tool to 
incentivize and achieve concrete policy and institutional reforms that 
improve the investment climate and fight corruption. Threshold programs 
can help a country become eligible for a compact and is an important 
tool for MCC to gain a sense of a potential compact country's true 
commitment to achieving sustainable economic growth.
Evaluation and Accountability
    Question 8.  What are your priorities as they relate to furthering 
the agency's leadership on transparency and evidence-based decision-
making?

    Answer. I intend to keep MCC at the leading edge of transparent 
assistance organizations. Transparency builds capacity within partner 
countries and builds confidence domestically that U.S. tax dollars are 
being used as efficiently and effectively as possible, and ultimately 
helps make the case for U.S. foreign engagement.

    Question 9.  In the State of Union, President Trump called on 
``Congress to pass legislation to help ensure American foreign 
Assistance dollars always serve American interests, and only go to our 
friends''. What will you do to ensure that MCC realizes this statement 
and ensures that foreign assistance provided by MCC ``only go to our 
friends''? What guidance has MCC received from the White House on 
executing the President's call to ``ensure American foreign Assistance 
dollars always serve American interests, and only go to our friends''?

    Answer. I intend to maintain MCC's objective selection criteria and 
model. I believe that U.S. strategic interests do not dictate where MCC 
engages, but where MCC does engage its actions buttress and support 
U.S. strategic interests. Moreover, MCC's work in the world's best 
governed poorest nations will hopefully lead to more allies and 
strategic partnerships.
Diversity
    Question 10.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups?

    Answer. First, I will support such staff--and promote their 
inclusion throughout the various MCC decision making processes. I will 
make clear to staff and stakeholders that I value diversity--as I did 
during my recent testimony to this committee.
    Second, I will seek to hire from as broad a pool of potential 
applicants as possible--including internal and external MCC 
candidates-- in order to increase both female and minority staff 
members at MCC. I will ensure that this goal is communicated to 
department and division leadership with hiring authority.

    Question 11.  What steps will you take to ensure each of the 
supervisors at the MCC are fostering an environment that is diverse and 
inclusive?

    Answer. If confirmed, I will set a tone from the top of the agency 
that diversity is critical to effective work and highly valued, 
enriches the work environment, and leads to better decision making. 
Among other things, I will participate in diversity and inclusion 
refresher training sessions and will require that all senior leadership 
participate along with me.

    Question 12. If confirmed, will you condemn and oppose policies and 
practices at MCC that are derogatory and discriminatory on the basis of 
race, religion, nationality, gender, sexual orientation, or gender 
identity?

    Answer. Yes.
Conflicts of Interest
    Question 13.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. Yes.

    Question 14.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.

    Question 15.  Do you or do any members of your immediate family 
have any financial interests in MCC compact and threshold countries?

    Answer. No.
Host Country Ownership

    MCC's model puts country constraints, priorities, and systems at 
the center of its work--leading to greater sustainability of 
development gains over time.

    Question 16.  How would you deepen the MCC's approach to country 
ownership and sustainability of impact at the agency?

    Answer. I believe that partner country financial commitment, such 
as Nepal contributing $130 million to their compact program, is an 
important demonstration of country ownership. I would seek to grow 
partner country resource mobilization.
    Also important is making sure that there is a strong process to 
gain civil society buy-in during the development phase which I intend 
to maintain and look for ways to improve.

    Question 17.  How might you better ensure that countries are able 
to build on MCC's legacy and continue the oversight, management, 
funding, monitoring, and evaluation of programs after MCC leaves?

    Answer. One of MCC's lasting legacies is the transfer of knowledge 
and the processes through which a successful project is run: open 
procurement; appropriate taxation; maintenance funds, etc. Much of this 
is instituted through the country ``Accountable Entities''--referred to 
as MCAs. I believe that working with host governments to gain a 
commitment to preserving the MCA best practices beyond the life of the 
compact is important to continuing the oversight, management, funding, 
monitoring, and evaluation of MCC projects post close-out date.

    Question 18.  What role do you believe host countries and local 
partners, that MCC works with, should play determining development 
projects and goals that involve MCC?

    Answer. Host country leadership in identifying economic constraints 
and targeting constraints has been a vital component of MCC's success 
to date. While this must continue, MCC should fully engage to ensure 
that the process moves forward expeditiously, and that delay is not 
created by an overreliance on process. Ultimately, the partner country 
must support the project to achieve sustainability.
USAID
    Question 19.  Have you discussed USAID's ``Strategic Transitions'' 
initiative with Administrator Green?

    Answer. I have not discussed Strategic Transitions with Ambassador 
Green.

    Question 20.  What role do you see MCC playing in realizing the 
aims of the ``Strategic Transitions initiative''?

    Answer. I will be happy to respond to the Senator, or the Senator's 
staff once I have discussed the matter with Ambassador Green.

    Question 21.  What is your vision for how MCC and USAID should 
engage to best leverage their individual strengths, in support of U.S. 
national interests?

    Answer. MCC's singular mission of reducing poverty through economic 
growth occupies a critical stage on a partner country's development 
arc. USAID's work at poverty alleviation and disaster relief occupy the 
front end of that arc, and MCC's engagement with a country is an 
indicator that a country has moved along that arc to the point of (1) 
attempting to embrace policies that reflect good governance, economic 
freedom, and investment in its people; and (2) targeting key 
constraints on economic growth and developing an MCC-funded investment 
that addresses those constraints with a goal of alleviating poverty. 
Conditions in countries at this critical stage still vary widely--with 
MCC engaged everywhere from Niger--one of the poorest countries in the 
world--to Georgia and Morocco.
    This also does not mean that MCC and USAID do not work in many of 
the same countries or otherwise closely coordinate programming where 
possible. Good examples of this include MCC's complementary work with 
Power Africa and PEPFAR in countries where MCC is engaged. This 
reflects an efficient model of U.S. Government assistance agencies 
working closely to avoid redundancy, stay on mission, and maximize 
impact.
    Ultimately, MCC's work should help build capacity for sustainable 
economic growth, and consolidate policy gains in a partner country. 
This supports broader U.S. strategic interests by building strategic 
partnerships and countering competing global development models that 
are being pursued, in particular from China. This dovetails with the 
administration's goals as expressed in Pillar IV--in particular 
encouraging aspiring partner countries--of the National Security 
Strategy and in the focus on global development finance that includes 
the Development Finance Initiative. While U.S. strategic interests do 
not dictate where MCC works, where MCC does work the agency supports 
and bolsters U.S. strategic interests.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Sean Cairncross by Senator Edward J. Markey

    The Honduran electoral commission in December 2017 declared 
President Juan Orlando Hern ndez winner of Honduras' presidential 
election despite widespread reports of voter irregularities. The Los 
Angeles Times January 27 reported that policy brutality and post-
election protest crackdowns by the police had not been investigated and 
on February 16, the leader of an international anti-corruption panel in 
Honduras resigned citing rising hostility from the Honduran Government. 
These reports indicate that the Honduran Government has failed to fight 
corruption or support human rights, important indicators for Honduras 
to receive U.S. assistance through the Millennium Challenge 
Corporation. Control of corruption is an especially critical indicator 
for MCC funding.

    Question 1.  How will you ensure that government's that fail to 
respect human rights and appear hostile to tackling corruption remain 
ineligible for MCC Compact funding?

    Answer. If confirmed, I will seek to maintain and further 
strengthen MCC's commitment to partnering only with countries committed 
to just and democratic governance and to controlling corruption. The 
scorecard remains a clear hurdle for countries to meet in order to be 
considered for compact selection. The Democratic Rights and Control of 
Corruption `hard hurdles' provide a strong screening mechanism to help 
ensure that the types of countries you describe in your question do not 
receive MCC compact funding. In addition, countries are held to a clear 
standard throughout the life-cycle of a compact and must maintain their 
eligibility at all times. MCC can and has suspended or terminated 
assistance to countries that have failed to maintain their commitment 
to good governance and, if confirmed, I will ensure that MCC continues 
to do so.

    Question 2.  Are there mechanisms to evaluate Threshold funding to 
ensure that U.S. assistance is not being used by governments to oppress 
their people? What internal controls are in place to ensure that U.S. 
funding, given the MCC model, is not diverted through corrupt means?

    Answer. Threshold programs incorporate numerous accountability 
mechanisms to ensure that U.S. assistance is tied to results and is 
only used only for its intended purposes. These mechanisms include 
establishing a special implementation unit, known as an accountable 
entity, through which technical assistance and other goods and services 
are competitively procured and paid for only when strict policies and 
procedures are met. Accountable entities prepare anti-fraud and 
corruption plans to adhere to and their financial statements are 
audited by third-party firms. MCC also provides its own regular 
oversight of program results and in certain cases can withhold funding 
if conditions related to reform objectives are not met.
    In addition to both financial controls within the Threshold program 
and an evaluation of a country's Control of Corruption score on MCC's 
scorecard, MCC maintains a strong eligibility monitoring program 
whereby country actions with respect to political rights, civil 
liberties, and control of corruption are closely tracked. Should a 
country engage in a pattern of actions inconsistent with MCC's 
eligibility criteria, I would not hesitate to recommend a suspension or 
termination of assistance to that country.

    Question 3.  Is the scorecard an adequate predictor of a country's 
ability to successfully implement development projects?

    Answer. I believe the scorecard is a strong tool for assisting MCC 
in identifying countries with policy environments that will allow MCC's 
funding to be effective in reducing poverty and promoting economic 
growth. MCC evaluates performance in three areas-Ruling Justly, 
Investing in People, and Encouraging Economic Freedom-using 
independent, third-party policy indicators.
    In particular, the `hard hurdles' on Democratic Rights and Control 
of Corruption help monitor whether the countries MCC partners with are 
ensuring freedom of expression, the rule of law, and open political 
participation for all, as well as whether public officials are using 
public office for private gain. This wealth of information is 
invaluable to MCC as it evaluates countries during the annual selection 
process.
    It is important to note that while the scorecard is an important 
component of MCC's selection process, it is not the only component. My 
understanding is that the Board relies on a full suite of `supplemental 
information' that provides further context and information on the 
suitability of potential compact partners.
    No single tool will ever be a perfect predictor of future success, 
and the scorecard is no exception to that. However, it remains a 
powerful tool and one that has played an important role in helping MCC 
achieve its impressive track record.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Sean Cairncross by Senator Jeff Merkley

    Question 1.  What do you see as the development goals of this 
administration? Where does MCC fit in with USAID and the broader 
development goals of this administration?

    Answer. MCC's singular mission of reducing poverty through economic 
growth occupies a critical stage on a partner country's development 
arc. USAID's work at poverty alleviation and disaster relief occupy the 
front end of that arc, and MCC's engagement with a country is an 
indicator that a country has moved along that arc to the point of (1) 
attempting to embrace policies that reflect good governance, economic 
freedom, and investment in its people; and (2) targeting key 
constraints on economic growth and developing an MCC-funded investment 
that addresses those constraints with a goal of alleviating poverty. 
Conditions in countries at this critical stage still vary widely--with 
MCC engaged everywhere from Niger--one of the poorest countries in the 
world--to Georgia and Morocco.
    This also does not mean that MCC and USAID do not work in many of 
the same countries or otherwise closely coordinate programming where 
possible. Good examples of this include MCC's complementary work with 
Power Africa and PEPFAR in countries where MCC is engaged. This 
reflects an efficient model of U.S. Government assistance agencies 
working closely to avoid redundancy, stay on mission, and maximize 
impact.
    Ultimately, MCC's work should help build capacity for sustainable 
economic growth and consolidate policy gains in a partner country. This 
supports broader U.S. strategic interests by building strategic 
partnerships and countering competing global development models that 
are being pursued, in particular from China. This dovetails with the 
administration's goals as expressed in Pillar IV--in particular 
encouraging aspiring partner countries--of the National Security 
Strategy and in the focus on global development finance that includes 
the Development Finance Initiative. While U.S. strategic interests do 
not dictate where MCC works, MCC supports and bolsters U.S. strategic 
interests where it does work.

    Question 2.  This administration has been reluctant to criticize 
foreign leaders for human rights and democracy issues. Will this impact 
the range of countries the MCC is willing to do business with?

    Answer. In order for a country to be eligible for MCC engagement, 
they must first pass the MCC scorecard and then be selected by the MCC 
board of directors as eligible to develop a program. The MCC's 
scorecard indicators are objective third-party indicators that include 
a ``hard hurdle'' democratic rights indicator. This indicator consists 
of a civil liberties and political rights indicators, and is designed 
to take into account human rights and democracy issues.

    Question 3.  As Senator Menendez raised in his letter of February 
23 to Jonathan Nash, Acting MCC CEO, there are reports that a senior 
Trump administration MCC appointee (Mr. Blau) has made employees 
uncomfortable by taking hostile stances towards diversity--including 
using language diminishing efforts to ensure fair workplace 
representation and treatment of ethnic minorities, LGBTQ, and women. If 
confirmed how, specifically, would you address this issue?

    Answer. I will conduct an appropriate review to make certain I know 
the facts. I will make clear to both the individual in question and to 
all MCC staff that I find such language unacceptable. I will take all 
appropriate steps to address the matter.

    Question 4.  You said during the hearing that you value diversity 
and believe that it makes for a stronger workplace. As the leader of 
the MCC what specific steps would you take to ensure that diversity is 
highly valued within the organization? What oversight and metrics would 
you seek to consult to ensure that conscious and unconscious bias is 
being adequately addressed?

    Answer. First, I will make clear to staff and stakeholders that I 
value diversity--as I did during my recent testimony to this committee. 
Second, I will seek to hire from as broad a pool of potential 
applicants as possible--including internal and external MCC 
candidates--in order to increase both female and minority staff members 
at MCC. I will ensure that this goal is communicated to department and 
division leadership with hiring authority. Finally, I will review MCC's 
overall hiring process to ensure it is focused on and equipped to 
realize this goal.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Sean Cairncross by Senator Cory A. Booker

MCC in Africa
    As Ranking Member of the Africa subcommittee of the SFRC, I am 
pleased to see that the MCC has developed compacts with 17 sub-Saharan 
African countries in the last 14 years.

    Question 1.  Can you discuss the potential MCC Threshold Programs 
in Africa and how you see them as a gateway to a full compact?

    Answer. Threshold programs provide countries with a potential 
gateway to a compact by advancing policy reforms and strengthening 
institutions to address the most binding constraints to economic 
growth. Threshold programs complement the ``MCC Effect'' created by the 
scorecard and allow MCC to assess the opportunity for an impactful and 
cost-effective partnership before committing to a larger compact.
    I have met with the Selection and Eligibility team at MCC and I 
know they are actively monitoring developments across the continent to 
identify potential new Threshold Programs. If confirmed, I will look 
forward to identifying potential new Threshold Program partners for 
MCC's Board to consider during the FY 19 country selection process
    My understanding is that MCC is currently working with three 
African countries through its Threshold Program--Sierra Leone, Togo, 
and The Gambia. The $44 million threshold program with Sierra Leone is 
creating the foundation for more effective and financially sustainable 
provision of critical water and electricity services. A program with 
Togo to address critical constraints in ICT and land tenure is pending 
board approval. In December 2017, MCC selected The Gambia for a 
threshold program, recognizing the watershed moment for democracy in 
that country.
MCC in Niger
    I am particularly interested in the MCC Compact with Niger, 
especially because I believe we are overly relying on our DoD presence 
to bring stability in Niger without an overarching political strategy 
to stabilize the Sahel, provide for sustainable livelihoods, and 
empower civilian leaders.

    Question 2.  Can you tell me more about MCC compact in Niger and 
how you hope it contributes to a more stable Sahel?

    Answer. In July 2016, MCC signed a $437 million compact with Niger 
focused on strengthening the agricultural sector. My understanding is 
that MCC is working with the Government of Niger to rehabilitate and 
develop irrigation systems to increase crop yields, promote sustainable 
livestock and improve market access for farmers. In addition, the 
compact will help establish a national water resource management plan 
and natural resource and land use management plans, and build local 
capacity. In Niger, the agricultural sector employs more than 80 
percent of the population so MCC's compact is aimed at increasing 
revenues for mainly small-scale farmers and creating jobs. These 
economic opportunities are expected to support stability through 
sustainable livelihoods and build capacity for local communities.

    Question 3.  Is Niger's 2017 downgrading on Freedom House's 
``political rights'' index expected to affect Niger's MCC eligibility 
or compact implementation?

    Answer. While Niger's performance on the FY 18 scorecard has not 
changed Niger's current eligibility status, I understand that MCC 
communicated clearly to the Government of Niger that it was concerned 
about the three-point decline in Niger's Political Rights score, even 
though Niger continues to pass the scorecard. Passing the scorecard is 
a necessary, but not sufficient, condition of MCC eligibility. If 
confirmed, I will ensure that MCC continues to closely monitor 
political rights in Niger.

    Question 4.  How, if confirmed, will you advise U.S. diplomatic 
messaging to leverage MCC investments in order to prevent more 
democratic backsliding in Niger?

    Answer. During compact development and during the current 
implementation stage, I understand that MCC has closely coordinated 
with the U.S. Embassy in Niamey and with other USG agencies active in 
Niger. They remain in sync on messaging, as MCC does in all partner 
countries. During compact implementation in any country, MCC continues 
to monitor a partner country's performance in various areas, including 
democratic governance and consistently messages that progress on 
implementation must be accompanied by strong policy performance.
    MCC's investments are always subject to countries maintaining their 
commitment to MCC's values of democratic governance, which includes 
guarantees of freedom of expression, the rule of law, and open 
political participation for all. One thing I admire about MCC is its 
willingness to suspend or terminate assistance to countries that fail 
to adhere to this commitment. If confirmed, I will advise continued 
messaging to the Government of Niger that MCC is closely monitoring 
events on the ground with a focus on the fair treatment of the 
political opposition and civil society, and on the rule of law. 
Significant further deterioration of political rights could adversely 
affect MCC's partnership with Niger.

                               __________

                              NOMINATIONS

                              ----------                              


                        THURSDAY, MARCH 1, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson [presiding], Gardner, and Murphy.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good morning. This hearing of the Senate 
Foreign Relations committee will come to order.
    We gather today to consider three nominations. Mr. Robert 
Pence is the President's nominee to be Ambassador to Finland. 
Dr. Judy Shelton is the nominee to be U.S. Executive Director 
of the European Bank for Reconstruction and Development. And 
Mr. Trevor Traina is the President's nominee to be the 
Ambassador to Austria. I want to welcome all the nominees and 
their families and friends. I want to thank all of you for your 
willingness to serve this nation. I certainly congratulate you 
for your nomination by President Trump, and I will let you 
introduce your family and friends in your opening statements.
    Before moving to those opening statements, I would also 
like to welcome our distinguished colleague from Texas, Senator 
John Cornyn, who will introduce our nominee to be Ambassador to 
Finland. Senator Cornyn?

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Well, thank you, Chairman Johnson and 
Senator Murphy. And to members of the committee, I am honored 
to be here.
    Let me just start by congratulating all three of the 
nominees for their nomination and their willingness to serve. 
But I am especially proud to introduce Robert Pence to serve as 
the United States Ambassador to Finland.
    Bob is the founder and chairman of the board of the Pence 
Group, a development company, but he is much more than just a 
successful businessman. He is a leader whose civic engagement 
is extensive and rooted in a deeply held sense of public 
obligation. For example, Bob serves on the board of directors 
for a foundation run by the actor, Gary Sinise, that supports 
our veterans and our first responders.
    He cares deeply about education and the arts too, having 
serving on the boards at George Mason University, American 
University, and the Kennedy Center here in Washington. He has 
taught at Georgetown and Yale, and quite incredibly, he has got 
not only a law degree but multiple master's degrees in subjects 
like Italian and Renaissance literature. You might literally 
say Bob is a Renaissance man. But I do believe he is still 
working, he said, on last chapter on his Ph.D. dissertation on 
Dante.
    In short, Bob exhibits all the finest attributes of a 
diplomatic leader. He is an entrepreneur and a lawyer. He is an 
advocate, an educator, and a lifelong student of the world and 
history. He knows how to collaborate with all different types 
of people and has plenty of relevant experience that will aid 
him in this new capacity.
    Finland, as the committee knows, is an increasingly 
important country geopolitically because it shares an 800-mile 
border with Russia. It is on the front lines of Russia's 
attempts at hybrid warfare, its attempts to influence the news, 
as well as diplomacy and elections. And there is a lot we can 
learn from Finland's experience combating those sorts of 
activities.
    Further, the Helsinki Accords show that Finland has long 
been near the center of global politics both as a host of and 
participant in them, and more recently Finland assumed the 2-
year rotating chairmanship of the Arctic Council. Finland is a 
valuable partner and a close friend of the United States. We 
work together on issues like trade. In the defense context, we 
recently signed a bilateral defense cooperation agreement.
    Our relations with Finland are underpinned by our shared 
democratic values and close ties between our people. About 
700,000 Americans trace their ancestry to Finland, and 200,000 
Fins visit the United States each year. Bob, I am convinced, 
understands these connections acutely.
    In short, I am grateful to Bob and Suzy for responding to 
the call to public service and the President's offer of a 
nomination of this important position. And I am here to offer 
my unequivocal endorsement of Bob Pence as the next Ambassador 
to Finland. And I appreciate your consideration of this 
nomination.
    Senator Johnson. Well, thanks, Senator Cornyn. You are 
certainly welcome to stay, but we know you have a busy 
schedule, so you are also free to go on to your schedule.
    Finland and Austria are important benchmarks for the 
strength of transatlantic relations. Since the end of the Cold 
War, Austria and Finland have followed clear Western 
trajectories. Both are pluralistic democracies and have robust 
market economies. Both joined the European Union in 1995 where 
Austria has the sixth and Finland has the seventh highest GDP 
per capita. And both joined NATO's Partnership for Peace 
program in the mid-1990s, allowing them to develop working 
relationships with the alliance. Last year, the U.S., Finland, 
and other NATO and EU members established a center in Helsinki 
dedicated to countering cyber attacks, disinformation, and 
propaganda, which we all realize is a huge problem particularly 
in Eastern Europe.
    Austria has been a strong U.S. partner in promoting 
stability in Southeast Europe and has advocated forcefully for 
incorporating the rest of the Western Balkans into the EU.
    Austria and Finland have also supported EU sanctions on 
Russia for its actions in Ukraine despite considerable cost to 
their economies.
    Austria and Finland's clear embrace of the West is a 
testament to the strength of Western institutions and 
transatlantic solidarity.
    If confirmed as the highest representatives of the United 
States to these countries, you will both be tasked with 
maintaining and strengthening these important relationships.
    The European Bank for Reconstruction and Development was 
founded to aid the transition of former communist countries 
from planned to free market economies. Unlike other 
multinational development banks, it is tasked with promoting 
private sector development in countries that are committed to 
democratic governance and market economies. As the largest 
single shareholder, the United States must use its influence to 
promote sound investments and honor that bank's unique mandate.
    Before introducing the nominees, I would like to recognize 
our distinguished ranking member for his comments. Senator 
Murphy?

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome to all of you. I want to thank our nominees and 
their families for being here today. You are all going to serve 
in different roles, but the common thread binding this panel 
all together is your responsibility for furthering our 
transatlantic relationship with Europe. These relationships 
remain close. They are irreplaceable, but they are strained 
right now, as you will find when you get on the ground.
    This is the first hearing that we have had since the 
President submitted his budget for the coming year, and it is 
just unbelievable that this attack on diplomacy and on the 
State Department continues with another proposed 30 percent cut 
to the State Department and USAID. At a time of rising 
instability with refugee flows at their highest since World War 
II, now is the time to be investing in the tools that help 
manage these challenges not proposing dramatic, drastic, and 
draconian cuts. There is no other agency in the Federal 
Government today that has been targeted by this administration 
like the State Department, and you are going to feel that when 
you are on the ground. If the United States is not leading, 
then countries like Russia and China, Saudi Arabia and Iran 
fill the void, bringing with them values that look nothing like 
the ones that we bring to the table when we are present.
    If confirmed, Mr. Pence and Mr. Traina, you are going to be 
representing the United States in Finland and Austria. While 
neither of these countries are members of NATO, both Finland 
and Austria are important partners to the alliance, and Finland 
in particular is seeking a much closer relationship with us.
    Equally critical is our representation on the European Bank 
for Reconstruction and Development. This is a bank that has 
been focused historically on Eastern Europe, the post-Soviet 
republics, but more recently on North Africa and the Middle 
East. And in these places, a strong private sector is so vital 
to political stability that often, as we know, accrues to our 
national security.
    Thank you all for being here today, and I really look 
forward to your testimony.
    Senator Johnson. Thank you, Senator Murphy.
    Again, I want to thank the nominees and their families and 
encourage you in your opening statements to introduce your 
families and friends. I do not think I can add really to 
Senator Cornyn's introduction of Mr. Pence, but Mr. Pence, if 
you would like to present your opening statement.

 STATEMENT OF ROBERT PENCE, OF VIRGINIA, TO BE THE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE REPUBLIC OF FINLAND

    Mr. Pence. Chairman Johnson, Ranking Member Murphy, 
distinguished members of the committee, it is an honor to 
appear before you today as President Donald Trump's nominee to 
be the United States Ambassador to the Republic of Finland. I 
am also grateful to Senator Cornyn for his gracious 
introduction of me to this committee.
    I am humbled by the President's selection of me for this 
position and for the support of Vice President Mike Pence, who 
I might add is no relation of mine. I relish the opportunity of 
working with Secretary Rex Tillerson and the competent and 
dedicated women and men of the State Department at Mission 
Finland and in the various federal agencies whose portfolios 
touch and concern Finland. If confirmed, I will direct all of 
my energies in meeting the trust and responsibility placed upon 
me.
    I am here today with the love of my life Suzy; our three 
sons, Steve, Geoff, and Brian; and their children. Our parents 
Hank and Stella and Bud and Dolly have passed on. The memory of 
them and the love, guidance, and support that they and the rest 
of our family have given me makes my being here today possible.
    I am a lifelong Washingtonian. I built a career over the 
past 47 years in commercial real estate. My work has led me to 
develop many of the management and diplomatic skills I expect 
to call upon, if confirmed. My projects have involved 
substantial interactions with political, administrative, civic, 
and business interests. If confirmed, I look forward to working 
with President Sauli Niinisto, Prime Minister Juha Sipila, 
Foreign Minister Timo Soini, and the Finnish people and their 
civic, cultural, educational, military, and religious 
institutions.
    I am most proud of my part in establishing the Gary Sinise 
Foundation, which supports veterans, first responders, and 
their families. I have also supported our troops through my 
work with the American University Law school, and I am proud to 
have participated in launching a program that allows those who 
have served honorably in the military of the United States of 
America to attend our law school tuition free.
    It has been an incredible honor to have served on various 
boards of the Kennedy Center and with my wife Suzy as members 
of the Kennedy Center International committee, which travels 
abroad to advance and create the Kennedy Center Gold Medal in 
the Arts program. That program is at the root of our relations 
with other nations, their citizens, and their cultures. The 
nexus of my professional and private interests is most evident 
in my role as chair of the construction committee of the new 
building at the Kennedy Center. You see it rising on the 
Potomac today.
    If confirmed, I will bring similar dedication and 
leadership to America's relationship with the Government and 
people of Finland. In December, Finland celebrated the 100th 
anniversary as a sovereign nation. Finland has transformed 
itself from a farm and forest economy to a diversified modern 
industrial economy. To do so, it needed a highly educated and 
technically trained workforce. It has succeeded.
    If confirmed, I will employ all of my professional and 
philanthropic and other experiences to advance our nation's 
interest and build upon our alliance with Finland.
    America has welcomed Finland's integration into western 
economic and political structures. Finland provided the venue 
for the Helsinki Accords of 1975, the terms and conditions of 
which Russia has not yet fully complied. Finland joined the 
European Union in 1995 and, while not a member of the North 
Atlantic Treaty Organization, it joined NATO's Partnership for 
Peace program and was designated a NATO Enhanced Opportunity 
Partner at the 2014 Wales Summit. Finland is a member of both 
the Arctic Council and the Northern Group, two alliances formed 
to deal with the complex military, commercial, and ecological 
issues confronting the area.
    The important strategic relationship the United States has 
today with Finland is reflected in the numerous high-level 
engagements over the past year to include reciprocal visits to 
Finland by Defense Secretary Mattis and a visit to Washington 
to meet President Trump by President Niinisto. Finland's 
security concerns match our own: North Korea's escalating 
armaments development, the deteriorating situation in the 
Ukraine and Crimea, and the threat of Russian and Chinese naval 
exercises in the Baltic and the Arctic. For a country of about 
5.5 million people with an expanding economy and a GDP of $240 
billion, Finland punches far above its weight.
    If confirmed by the Senate, I assure you of my commitment 
to enforce Secretary Tillerson's clear mandate. My paramount 
obligation is to ensure the safety and security of the embassy 
and its personnel and their families. The events of last week 
in Montenegro reinforce this priority. I will also lead Mission 
Finland in accord with three values clearly enunciated by 
Secretary Tillerson: accountability, honesty, and respect.
    President John Fitzgerald Kennedy famously challenged all 
Americans to ask, ``Ask not what your country can do for you. 
Ask what you can do for your country.'' My answer is this: I 
wish to take this step to pay back, in some small way, the 
country that has offered me so much.
    Thank you for your time, and I look forward to your 
questions.
    [Mr. Pence's prepared statement follows:]


                Prepared Statement of Robert Frank Pence

    Chairman Johnson, Ranking Member Murphy, distinguished members of 
the committee. It is an honor to appear before you today as President 
Donald Trump's nominee to be the United States Ambassador to The 
Republic of Finland. I am also grateful to Senator Cornyn for his 
gracious introduction of me to this committee.
    I am humbled by the President's selection of me for this position, 
and the support of Vice President Pence--who, I might add, is not 
related to me. I relish the opportunity of working with Secretary Rex 
Tillerson and the competent and dedicated women and men of the State 
Department, at Mission Finland, and in the various federal agencies 
whose portfolios touch and concern Finland. If confirmed, I will direct 
all of my energies in meeting the trust and responsibly placed upon me.
    I am here today with the love of my life, Suzy; our three sons 
Steve, Geoff and Brian; and their children. Even though my parents, 
Hank and Stella, and Suzy's parents, Bud and Dolly Sarbacher, have 
passed on, the memory of them and the love, guidance, and support that 
they and the rest of our family have given me make my being here today 
possible.
    By way of introduction, I am a life-long Washingtonian. I built a 
career over the past 47 years in commercial real estate. I have, either 
individually or with others, developed over 35 projects--all of them 
successful. My work has led me to develop many of the management and 
diplomatic skills I expect to call upon if confirmed. Each project has 
involved substantial interactions with local political, administrative, 
civic, and business interests. If confirmed, I look forward to working 
with President Sauli Niinisto, Prime Minister Juha Sipila, Foreign 
Minister Timo Soini, and the people and civic, cultural, educational, 
military and religious institutions of Finland.
    In addition to my professional interests, I have spent much of my 
adult life involved in actions that enrich our society and give back to 
those who have sacrificed so much for our country. My philosophy has 
been: I follow when others lead, I lead when others cannot or will not. 
And I lead when no one else is around or yet involved. I am perhaps 
most proud of my part in establishing the Gary Sinise Foundation which 
supports veterans, first responders, and their families by creating 
unique programs that entertain, educate, inspire, strengthen, and build 
communities. It has been an honor to sponsor USO dinners and concerts 
for our troops both domestically and overseas at the Ramstein Air Force 
Base in Germany featuring The Beach Boys and Gary Sinise's Lt. Dan 
Band. I have supported our troops as well through my work with the AU 
law school and am especially proud of having participated in launching 
a program that allows any new student who served honorably in the 
American military to go to the AU law school tuition free.
    It has been an incredible honor to have been associated with the 
Kennedy Center for the past decade plus. For about twelve years I 
served on various boards at the Kennedy Center and with my wife Suzy 
have represented the Kennedy Center abroad as a part of the Kennedy 
Center Gold Medal in the Arts program. These week-long, intensive, high 
level programs get to the root of our relations with other nations, 
their citizens, and their cultures. The nexus of my professional and 
private interests is most evident in my role on the new building you 
see rising on the Potomac. For four years I chaired the expansion 
committee at the Kennedy Center, and could not be prouder of the 
expansion of the arts in our Nation's capital.
    If confirmed, I look forward to bringing a similar dedication and 
leadership to our country's relationship with the Government and people 
of Finland. In December Finland celebrated its 100th anniversary as a 
sovereign nation. About 700,000 Americans of Finnish descent joined in 
the festivities. If confirmed, I look forward to further cementing the 
ties between our great countries. During the past years Finland has 
transformed itself from a farm and forest economy to a diversified 
modern industrial economy. To do so it needed a highly educated and 
technically trained workforce. It succeeded by demonstrating the unique 
trait that the Finns call sisu (which I take to mean an inner sense of 
mental and physical strength). I hope to build on my professional and 
philanthropic experiences to advance our Nation's interest and build 
our alliance with Finland.
    The United States has welcomed Finland's integration into Western 
economic and political structures over the past decades. Finland 
provided the venue for the Helsinki Accords of 1975, the terms and 
conditions of which Russia has not yet fully complied. Finland joined 
the European Union in 1995 and, while not a member of the North 
Atlantic Treaty Organization, it joined NATO's Partnership for Peace 
program and was designated a NATO Enhanced Opportunity Partner at the 
2014 Wales Summit. Finland shares an 833 mile border with an 
increasingly militant Russia, a southern border on the Baltic Sea over 
which Russia is attempting to extend its hegemony, and a northern 
border which almost reaches the Arctic Sea which Russia is rapidly 
militarizing. Finland is a member of both the Arctic Council and the 
Northern Group, two alliances formed to deal with the complex military, 
commercial, freedom of navigation, and ecological issues confronting 
the area.
    The important strategic relationship the United States has today 
with Finland is reflected in the numerous high level engagements over 
the past year to include reciprocal visits to Finland by Defense 
Secretary Mattis and a visit to Washington to meet President Trump by 
Finland's President Niinisto. Finland's security concerns are 
consistent with our own: North Korea's escalating armaments 
development, the deteriorating situation in the Ukraine, Russia's 
attempted annexation of Crimea, the threat of combined Russian and 
Chinese naval exercises in the Baltic, and the possible adverse effects 
of the Nord Stream II pipeline. For a country of about 5.5 million 
people with an expanding economy and a GDP of about $240 billion 
dollars, Finland punches far above its weight.
    If I am fortunate enough to be confirmed by the Senate, I can 
assure you of my commitment to the women and men serving our country in 
Finland. As Secretary Tillerson has clearly mandated, my paramount 
obligation is to ensure the safety and security of the embassy and its 
personnel and their family members. The events of last week in 
Montenegro reinforce this priority. I am also committed to leading 
Mission Finland in accord with three values enunciated by Secretary 
Tillerson: accountability, honesty, and respect.
    In his Inaugural Address President John Fitzgerald Kennedy famously 
challenged all Americans to `` . . . ask not what your country can do 
for you--ask what you can do for your country.'' My answer is this: ``I 
wish to take this step to pay back, in some small way, the country that 
has offered me so much.''
    Thank you for your time and I look forward to your questions.


    Senator Johnson. Thank you, Mr. Pence.
    Our next nominee is Dr. Judy Shelton. Dr. Shelton is the 
nominee to be the Executive Director of the European Bank for 
Reconstruction and Development. Dr. Shelton currently serves as 
chairman of the National Endowment for Democracy as a senior 
fellow at the Atlas Network. She was a former senior research 
fellow at the Hoover Institution and the author of two books on 
global economic developments. Dr. Shelton has testified before 
Congress on numerous occasions as an expert witness on 
international finance, banking, and monetary issues.
    Dr. Shelton?

STATEMENT OF DR. JUDY SHELTON, OF VIRGINIA, TO BE UNITED STATES 
EXECUTIVE DIRECTOR OF THE EUROPEAN BANK FOR RECONSTRUCTION AND 
                          DEVELOPMENT

    Dr. Shelton. Mr. Chairman, Ranking Member Murphy, 
distinguished members of the committee, I am grateful for the 
opportunity to appear before you today. I am honored that 
President Trump has nominated me to serve as the U.S. Executive 
Director for the European Bank for Reconstruction and 
Development.
    Please let me take this opportunity to acknowledge the 
support of my husband of 40 years, Gilbert Shelton. I am 
thankful that our son Gibb is also here today. And I would like 
to recognize my mother in California, Janette Potter, who is 
watching along with my sisters and brothers.
    More than 3 decades ago, in the mid-1980s, I was doing 
postdoctoral research at Stanford University after having been 
appointed a National Fellow by the Hoover Institution. I found 
myself examining Soviet economic and financial statistics that 
purportedly reflected the robust condition of our nation's 
formidable nuclear adversary. I found it odd that the Soviet 
Government would go to such pains to present itself as 
economically self-sufficient even as its new leader, Mikhail 
Gorbachev, was aggressively seeking loans from the West.
    What started out as a scholarly treatise evaluating the 
impact of Western capital on the Soviet economy turned into a 
hard-hitting policy book published in January 1989 with the 
rather startling title ``The Coming Soviet Crash.'' It had 
become apparent during the course of my research that the USSR 
was going bankrupt.
    That development had significant implications for the 
national security of the United States and the overarching 
defense strategy of the West. Urgent plans for what would 
become the European Bank for Reconstruction and Development 
were converted into reality by April 1991 to meet the challenge 
of an extraordinary moment, the collapse of communism in 
Central and Eastern Europe and the dawning of a new post-Cold 
War era.
    From the start, the charter of the EBRD has embraced the 
unique mandate that only countries that are committed to 
democratic development are eligible to receive financing 
assistance. The emphasis has been on empowering the private 
sector to move recipient countries toward market-oriented 
economies and to promote entrepreneurial initiative.
    And while those guiding principles have proven to be key 
success factors for transitioning nations, they are still met 
with grim resistance where authoritarian tendencies are 
entrenched. The expansion of bank operations into Mongolia, 
Turkey, Egypt, Lebanon, and other countries beyond its original 
region poses additional opportunities as well as potential 
tests.
    The United States has always been and remains the bank's 
largest shareholder. My objective, if confirmed, would be to 
ensure that the EBRD focuses on high-quality infrastructure 
projects that promote economic growth. At the same time, I 
would work with our allies to maintain high standards in the 
cause of freedom by demanding that countries achieve genuine 
progress toward democratic ideals because a nation can go 
bankrupt in ways other than just in the financial sense.
    As a member of the board of directors of the National 
Endowment for Democracy, I served as the designated board 
expert on Russia, Ukraine, and Belarus for 9 years, from 2005 
to 2014. From that perspective, I witnessed the dangers of 
backsliding on fundamental civil liberties and human rights. I 
came to deeply appreciate the importance of democratic 
institutions to guarantee fundamental freedoms and uphold rule 
of law. When the bipartisan NED board elected me chairman last 
year, I was honored and humbled.
    Recognizing that political and economic freedom should 
advance hand in hand would seem to be a powerful prerequisite 
for vigorously representing America's viewpoint at multilateral 
development and financial institutions. Democracy and free 
enterprise share the same moral underpinning.
    In short, given my background in analyzing the strategic 
implications of global financial developments and my strong 
commitment to democracy, I cannot imagine a more stimulating 
challenge or more meaningful responsibility than to take on the 
role of safeguarding our nation's vital interests and deeply 
rooted values at the EBRD, should you deem me worthy of serving 
as U.S. Executive Director.
    Chairman Johnson, Senator Murphy, and members of the 
committee, thank you for considering my nomination. I would be 
most pleased to respond to your questions.
    [Dr. Shelton's prepared statement follows:]


                 Prepared Statement of Dr. Judy Shelton

    Mr. Chairman, Ranking Member Murphy, distinguished members of the 
committee, I am grateful for the opportunity to appear before you 
today. I am honored that President Trump has nominated me to serve as 
the U.S. Executive Director for the European Bank for Reconstruction 
and Development.
    Please let me take this opportunity to acknowledge the support of 
my husband of 40 years, Gilbert Shelton. I'm thankful that our son, 
Gibb, is also here today. And I'd like to recognize my mother in 
California, Janette Potter, who is watching along with my sisters and 
brothers.
    More than three decades ago, in the mid-1980s, I was doing 
postdoctoral research at Stanford University after having been 
appointed a National Fellow by the Hoover Institution. I found myself 
examining Soviet economic and financial statistics that purportedly 
reflected the robust condition of our nation's formidable nuclear 
adversary. I found it odd that the Soviet Government would go to such 
pains to present itself as economically self-sufficient--even as its 
new leader, Mikhail Gorbachev, was aggressively seeking loans from the 
West.
    What started out as a scholarly treatise evaluating the impact of 
Western capital on the Soviet economy turned into a hard-hitting policy 
book published in January 1989 with the rather startling title: ``The 
Coming Soviet Crash.'' It had become apparent during the course of my 
research that the USSR was going bankrupt.
    That development had significant implications for the national 
security of the United States and the overarching defense strategy of 
the West. Urgent plans for what would become the European Bank for 
Reconstruction and Development were converted into reality by April 
1991 to meet the challenge of an extraordinary moment--the collapse of 
communism in Central and Eastern Europe and the dawning of a new post-
Cold War era.
    From the start, the charter of the EBRD has embraced the unique 
mandate that only countries that are committed to democratic 
development are eligible to receive financing assistance. The emphasis 
has been on empowering the private sector to move recipient countries 
toward market-oriented economies and to promote entrepreneurial 
initiative.
    And while those guiding principles have proven to be key success 
factors for transitioning nations, they are still met with grim 
resistance where authoritarian tendencies are entrenched. The expansion 
of bank operations into Mongolia, Turkey, Egypt, Lebanon and other 
countries beyond its original region poses additional opportunities as 
well as potential tests.
    The United States has always been, and remains, the bank's largest 
shareholder. My objective, if confirmed, would be to ensure that the 
EBRD focuses on high-quality infrastructure projects that promote 
economic growth. At the same time, I would work with our allies to 
maintain high standards in the cause of freedom by demanding that 
countries achieve genuine progress toward democratic ideals--because a 
nation can go bankrupt in ways other than just in the financial sense.
    As a member of the Board of Directors of the National Endowment for 
Democracy, I served as the designated Board expert on Russia, Ukraine, 
and Belarus for nine years, from 2005 to 2014. From that perspective, I 
witnessed the dangers of backsliding on fundamental civil liberties and 
human rights. I came to deeply appreciate the importance of democratic 
institutions to guarantee fundamental freedoms and uphold rule of law. 
When the bipartisan NED Board elected me Chairman last year, I was 
honored and humbled.
    Recognizing that political and economic freedom should advance 
hand-in-hand would seem to be a powerful prerequisite for vigorously 
representing America's viewpoint at multilateral development and 
financial institutions. Democracy and free enterprise share the same 
moral underpinning.
    In short, given my background in analyzing the strategic 
implications of global financial developments and my strong commitment 
to democracy, I cannot imagine a more stimulating challenge or more 
meaningful responsibility than to take on the role of safeguarding our 
nation's vital interests and deeply-rooted values at the EBRD--should 
you deem me worthy of serving as U.S. Executive Director.
    Chairman Johnson, Senator Murphy, and members of the committee, 
thank you for considering my nomination. I would be most pleased to 
respond to your questions.


    Senator Johnson. Thank you, Dr. Shelton.
    Our final nominee is Mr. Trevor Traina. Mr. Traina is the 
President's nominee to be U.S. Ambassador to Austria. Mr. 
Traina is founder and CEO of If Only, a company that allows 
buyers to purchase unique life experiences and donate a portion 
of the proceeds to charity. He has held nonprofit advisory 
positions at the Fine Arts Museum of San Francisco, the Haas 
School of Business, and the Princeton University Art Museum. 
Mr. Traina is an alumnus of Princeton University and St. 
Catherine's College at Oxford.
    Mr. Traina?

  STATEMENT OF TREVOR TRAINA, OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE REPUBLIC OF AUSTRIA

    Mr. Traina. Mr. Chairman, Ranking Member, distinguished 
members of the committee, I am humbled to be here today as 
President Trump's nominee to be the United States Ambassador to 
Austria. I am excited that the President has presented me with 
this opportunity to work with the White House, Secretary 
Tillerson, and the highly capable team at the State Department 
and the U.S. mission in Vienna.
    I am delighted to be joined by my amazing wife, best 
friend, and partner in all things, Alexis. With her are our two 
wonderful children, Johnny and Delphina. They sustain me and 
they have been very brave at the idea, if I am confirmed, of 
leaving their friends and moving halfway around the work.
    A diplomatic post is both an honor and an obligation. I 
learned this from my grandfather, Wiley Buchanan, who was the 
United States Chief of Protocol and Ambassador to Luxembourg, 
as well as Ambassador to Austria, the very same post for which 
I am being considered.
    My grandfather is no longer with us, but he would be 
absolutely delighted by my nomination. This is not a guess but 
the sworn testimony of my grandmother who just celebrated her 
100th birthday. If I am confirmed, she would have the confusing 
honor of being the wife and the grandmother of the Ambassador 
to Austria. She too is delighted by the idea.
    Thanks to my grandparents, the very first country I ever 
visited was Austria. I stayed at the Ambassador's residence in 
Vienna, and I saw firsthand what it means to serve one's 
country as Ambassador. Chief of Mission responsibilities are 
real and they are not to be taken lightly. I saw how hard my 
grandfather worked, and I also observed how hard our diplomats 
worked to make the world safer and more secure. I heard from my 
grandfather about Russia and the Cold War and the threat of 
nuclear weapons and how the entire Foreign Service labored 
night and day to keep us all safe, advancing our interests as 
we slept soundly back at home. Some day, I thought, I want that 
responsibility too.
    I have returned to Austria many times since to visit 
friends and family and even to introduce my children on their 
first trip to Europe. But I never dreamed I might have the 
opportunity, if confirmed, to return again in the same job that 
my grandfather had.
    Austria has a new Chancellor and governing coalition, and 
if confirmed, I look forward to working with its government in 
pursuit of our shared goals of peace, security, and prosperity 
in Europe and beyond. Although neutral, Austria is an active 
and vital participant in many peacekeeping operations, firmly 
planted in the transatlantic community, and an important 
partner in the fight against crime and terrorism.
    While it is hard to be fully prepared to be a chief of 
mission, I have been fortunate to have educational and cultural 
experiences that have helped me. I have lived in Europe, and 
motivated by my grandfather and my early interest in foreign 
service, I studied international relations at both Princeton as 
an undergrad and at Oxford as a graduate student.
    My business career has also prepared me for the management 
responsibilities of an ambassador. In my career, I have run 
companies, evaluated employees, hired division heads, and 
managed people. I have also set goals and priorities and met 
those goals. I would bring this experience into my new role, if 
confirmed. As a tech entrepreneur, I believe that America's 
lead in new technologies powering the digital revolution are a 
matter of pride and a natural touch point for outreach and for 
advocacy. I would look forward to the opportunity to promote 
U.S. business, especially technology, in Austria.
    Vienna is one of the cultural capitals of Europe and the 
celebration of cultural excellence is at the core of Austrian 
identity. My service on the boards of two of America's top 
museums and my own passions for art and culture have already 
brought me to Austria. I would look forward to the opportunity 
to promote art and cultural exchange, further deepening this 
already strong connection between our societies.
    And finally, I would look forward to outreach to the 
Austrian people. In many places, the memories of World War II 
and the American role in the rebuilding of Europe are fading. 
As we mark the 70th anniversary of the Marshall Plan and its 
positive impact in Europe and Austria, I would hope to refresh 
the bond between Austrians and Americans on the basis of our 
common values and shared post-war history.
    It is an honor to appear before this committee today. If 
confirmed, I commit to give everything I have to represent all 
Americans and to serve our country and its interests 
successfully.
    I thank you for your time, and I look forward to answering 
any questions that you might have.
    [Mr. Traina's prepared statement follows:]


                  Prepared Statement of Trevor Traina

    Mr. Chairman, Ranking Member, distinguished members of the 
committee, I am humbled to be here today as President Trump's nominee 
to be the United States Ambassador to Austria. I am excited that the 
President has presented me with this opportunity to work with the White 
House, Secretary of State Tillerson, and the highly capable team at the 
State Department and the U.S. Mission in Vienna.
    I am delighted to be joined by my amazing wife, best friend, and 
partner in all things, Alexis. With her are our two wonderful children. 
Johnny and Delphina sustain me and have been very brave at the idea, if 
I am confirmed, of leaving their friends and moving half way around the 
world.
    A diplomatic post is both an honor and an obligation. I learned 
this from my grandfather Wiley Buchanan who was the United States Chief 
of Protocol and Ambassador to Luxembourg as well as Ambassador to 
Austria, the very same post for which I am being considered.
    My grandfather is no longer with us, but he would be absolutely 
delighted by my nomination. This is not a guess, but the sworn 
testimony of my grandmother, who just celebrated her 100th birthday. If 
I am confirmed she would have the confusing honor of being the wife and 
the grandmother of the Ambassador to Austria. She too is delighted by 
the idea.
    Thanks to my grandparents, the very first country I ever visited 
was Austria. I stayed at the Ambassador's Residence in Vienna and saw 
first-hand what it means to serve one's country as Ambassador. Chief of 
Mission responsibilities are real and they are not to be taken lightly. 
I saw how hard my grandfather worked, and I also observed how hard our 
diplomats worked to make the world safer and more secure. I heard from 
my grandfather about Russia and the Cold War and the threat of nuclear 
weapons and how the entire Foreign Service labored night and day to 
keep us all safe, advancing our interests as we slept soundly back at 
home. Someday, I thought, I want that responsibility too.
    I have returned to Austria many times since to visit friends and 
family and even to introduce my children on their first trip to Europe. 
But I never dreamed I might have the opportunity, if confirmed, to 
return again in the same job that my grandfather had!
    Austria is not just a country I know. It is a country I love. It is 
a country with a rich history that sits at the crossroads of Europe and 
enjoys strategic connections to the Balkan states. As a neutral nation, 
Austria plays a significant role in multilateral conversations and in 
diplomatic efforts well beyond the borders of Europe.
    Austria has a new Chancellor and governing coalition and, if 
confirmed, I look forward to working with its government in pursuit of 
our shared goals of peace, security and prosperity in Europe and 
beyond. Although neutral, Austria is an active and vital participant in 
many peacekeeping operations, firmly planted in the Trans-Atlantic 
community, and an important partner in the fight against crime and 
terrorism.
    While it is hard to be fully prepared to be a Chief of Mission, I 
have been fortunate to have educational and cultural experiences that 
have helped me. I have lived in Europe and, motivated by my grandfather 
and my early interest in the Foreign Service, studied International 
Relations at both Princeton as an undergraduate and at Oxford 
University as a graduate student.
    My business career has also prepared me for the management 
responsibilities of an ambassador. In my career, I have run companies, 
evaluated employees, hired division heads, and managed people. I have 
also set goals and priorities and met those goals. I would bring this 
experience into my new role, if confirmed. I have founded or co-founded 
five companies in the technology field and have invested in dozens 
more. I sold my first company to Microsoft, staying on for two years, 
and have seen the best of what large companies and small companies have 
to offer organizationally. I might add I know a bit about bureaucracy 
from the experience! As the CEO of my current company I manage a team 
and budget not unlike that of the Mission in Austria. I believe I would 
be able to lead the Embassy staff with a clear vision and a commitment 
to the highest ethical standards.
    The President has stated his desire for diplomacy that leads to 
economic opportunity. Austria is an increasingly important destination 
for American goods and services and its companies have made significant 
investments in our dynamic economy. As a technology entrepreneur, I 
believe that America's lead in new technologies powering the digital 
revolution are a matter of pride and a natural touchpoint for outreach 
and advocacy in foreign countries. I would look forward to the 
opportunity to promote U.S. business, especially technology, in 
Austria. While technology startups in Austria number only a few 
thousand, 500-1000 new ones are launched every year and existing 
exchange programs with Silicon Valley and Austin, Texas, represent a 
great start to what could be an even bigger connection.
    I have sat on the boards of companies and of organizations like the 
Haas School of Business at UC Berkeley and I have honed my ability to 
seek consensus and to identify opportunities for improvement.
    Vienna is one of the cultural capitals of Europe and the 
celebration of cultural excellence is at the core of Austrian identity. 
My service on the boards of two of America's top museums and my own 
passions for art have already brought me to Austria. I would look 
forward to the opportunity to promote art and cultural exchange between 
the United States and Austria, furthering deepening this already strong 
connection between our societies.
    Finally, I would look forward to outreach to the Austrian people on 
behalf of the people of the United States. In many places the memories 
of World War II and the American role in the rebuilding of Europe are 
fading. As we mark the 70th anniversary of the Marshall Plan and its 
positive impact in Europe and Austria, I would hope to refresh the bond 
between Austrians and Americans on the basis of our common values and 
shared post-war history that continues to demonstrate the full value 
and potential of American friendship.
    It is an honor to appear before the committee today. If confirmed, 
I commit to give everything I have and using all my energy, experience, 
passion, and resolve to represent all Americans and to serve our 
country and its interests successfully.
    I thank you for your time and look forward to answering any 
questions you might have.


    Senator Johnson. Thank you, Mr. Traina.
    Let me just say I think it is very pleasing to see three 
very well qualified nominees for these important posts.
    Let me start with Dr. Shelton because I think you do bring 
a very unique level of expertise to this area and to this 
position.
    On Tuesday, we commemorated the murder of Boris Nemtsov by 
dedicating a plaza in front of the Russian embassy in his name, 
Boris Nemtsov Plaza. I had an opportunity to speak at that 
event, and one of the points I made because we gave up a 
section of Wisconsin Avenue, by the way--and we were happy to 
do so. One of the points that I made is it is a tragedy of 
historic and global proportions that Russia did not continue 
down the path begun by Boris Yeltsin and Boris Nemtsov.
    I would just like you--and this is a little bit apart from 
your position, but I just want to utilize your expertise. What 
went wrong? What happened? Can you just kind of give us some 
sort of historical perspective? Because Russia just continues 
to behave worse, become more menacing, whether it is 
interfering in our elections, Montenegro, basically an act of 
war, and now an act against our embassy by not necessarily 
Russia. But just describe what from your perspective has gone 
wrong with Russia.
    Dr. Shelton. Well, thank you very much for the question and 
for the comment, Senator Johnson. I might say I was very aware 
of your involvement in that event on Tuesday, and I think when 
an important U.S. Government official stands up shoulder to 
shoulder with the brave and bold activists that was to honor 
Boris Nemtsov who was fighting to maintain the democratic dream 
for Russia--and he was inspired by the American model and our 
founding values. And he, along with other Russian activists, 
have wanted to secure those institutions of democracy for their 
own country. I think that the most powerful countermeasure we 
have against Russian disinformation and propaganda efforts is 
exactly what you were doing and what I think the National 
Endowment for Democracy has done from its beginning, inspired 
by Ronald Reagan's vision in standing with these people who 
want to shape a better future for their fellow citizens and who 
would follow the democratic model.
    What happened with Russia--and this is why this post is 
particularly interesting to me--is they did have a chance under 
Yeltsin. I was working with a team from the Hoover Institution 
from Stanford in Russia in April 1991 with Yeltsin's team. And 
they were ready to embrace an open market economy. They wanted 
accountability, transparency. They wanted rule of law. They 
wanted the basic civil liberties that Americans enjoy.
    I think perhaps it was that fateful decision to select 
President Putin versus Boris Nemtsov. They were both being 
considered at the time. And what we have seen is in some ways a 
continuation of the cynical tactics of trying to undermine what 
you have been unable to achieve for yourself. We have seen a 
continuation of the disinformation and propaganda techniques. 
They have been updated, but they use trolls and bots and false 
websites and unreal personas, whereas we are standing up and 
countering that with flesh and blood individuals who are 
working in their own countries.
    So I think Russia is still preoccupied with military 
prowess and is willing to sacrifice far too much to subsidize 
energy exports to use as a tool of intimidation, and they just 
have the mindset, unfortunately, that still is closer to the 
Soviet model than what we would have aspired for them to 
become.
    Senator Johnson. So as Senator Murphy--and I do not want to 
speak for the Senator, but as we have traveled around Europe, 
it is the same story: the propaganda, the disinformation, the 
destabilizing efforts, the invasion of Georgia, Crimea, eastern 
Ukraine, the attack on Montenegro's parliament.
    I want to ask all three of you. How do you utilize your new 
position to push back on that, to resist it, try and attempt to 
get Russia to behave in a civilized manner that is more 
stabilizing, that actually promotes peace versus promoting 
instability? I will start with you, Mr. Traina.
    Mr. Traina. Thank you, Senator, for that important 
question.
    I agree with you 100 percent. I think it is a serious 
issue, and it is a 24-hour-a-day, 7-day-a-week issue. Really, 
it is an issue for diplomacy. Right? That is why you are 
sending people like us to these posts who, if confirmed, work 
every single angle. And I think it is just constant vigilance.
    Senator Johnson. Dr. Shelton?
    Dr. Shelton. Well, I might note that with regard to 
Russia's military aggression toward Ukraine, with guidance from 
U.S. Treasury and in cooperation with our G-7 allies and the 
European Union, the European Bank for Reconstruction and 
Development stopped providing any financing for Russia as of 
July 2014. They have maintained that position. That is one way 
to make it clear that they do not accept this kind of behavior 
and these blunt-force tactics.
    Senator Johnson. Mr. Pence?
    Mr. Pence. Thank you, Senator, for the question.
    The United States and our allies--we must stand together. 
One thing that Russia is trying to do is drive wedges between 
the United States and NATO, between NATO and the European 
Union, between Finland and each of those institutions. We will 
enhance and protect the individual security of countries by the 
exercise of collective strength. We must not only by words but 
in deeds show that we are up to the task.
    Having said that, when President Niinisto was here last 
year, he stressed the necessity of undertaking both dialogue 
and deterrence. They go hand in hand, and that is the function 
of diplomacy.
    Thank you.
    Senator Johnson. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Again, let me thank you all for your willingness to serve 
as representatives of the United States abroad.
    Mr. Traina, I wanted to just ask you a question about the 
state of politics in Austria today. The most recent election 
resulted in the Freedom Party, the far right party, gaining 26 
percent of the vote. This is a party that has signed a 
cooperation agreement with Russia's ruling party, and they have 
been included in the current government.
    So what is the role of--this is obviously a trend line that 
we have been watching all over Europe, these far right parties 
doing much better. 26 percent is a big share of the vote in a 
place like that, and the idea that a party representing 26 
percent of the country would sign an agreement with a Russian 
political party is very concerning.
    In your preparation for this job, what is your 
understanding as to the position of the United States 
Government with respect to the Freedom Party, their inclusion 
in the Government, and what will you have to say about that 
when you are on the ground?
    Mr. Traina. Thank you, Senator. As you point out, this is a 
really important question.
    Obviously, Austria is a democracy, an advanced democracy, 
and they have a freely elected government. By all accounts, we 
are already working well with that new government. But like any 
ally or friend, we will ultimately judge that government by 
their deeds and actions.
    Senator Murphy. And do you see it as appropriate to raise 
concerns regarding the increased political power of these 
relatively far right groups?
    Mr. Traina. Thank you, Senator.
    I think there are a number of issues at play, whether it is 
immigration, religious freedom, et cetera, not unique, frankly, 
to Austria but in many places that are all areas that require 
vigilance on our part and require, to your point, dialogue. And 
I also look forward to dialogue with your staff as well on 
these important matters.
    Senator Murphy. Another potential point of friction is over 
the new gas pipeline coming into Europe from Russia, Nordstream 
2. The Trump administration and many people we have talked to 
have expressed their desire to continue the opposition to that 
pipeline that the Obama administration began, but Austria is in 
favor of it. What can you do as Ambassador to try to make 
Austria understand the risk of making the continent of Europe 
more dependent on Russian energy?
    Mr. Traina. Thank you, Senator.
    I agree 100 percent. It is a very complicated issue. 
Austria was the first non-Eastern Bloc country to hook up to 
Russian gas. It was in 1968. So it is 50 years of history 
there. There is a lot of interconnection between the countries 
on this. And half of all the gas used in Austria comes from 
Russia.
    I think this is a time to acknowledge that we have a great 
team in place already. The country team is there. If confirmed, 
I would definitely work very closely with them to understand 
what has already been done on this and, as a team, certainly 
work very hard to advocate because I agree with you. I think it 
is in Austria's best interest and in all of Europe's best 
interest to have multiple sources of energy for a hundred 
different reasons.
    Senator Murphy. Let me just come back to my first question 
and just finish off the thought for you. I think it is very 
important for U.S. Ambassadors to speak up against the growth 
of far right parties, in particular, far right parties that are 
anti-immigrant in nature. The perception of the United States 
today abroad is deeply clouded by the President's perceived 
antipathy towards immigrants to the United States, and I would 
argue it is not perceived. It is real. So I think it is very 
important for the United States, a country that is built on 
immigration, to explain to other countries the value of being 
inclusive of people who come from other places. Right now, 
there is a perception that we are backsliding on our commitment 
to immigration. And so I hope that you will raise concern when 
elements of the ruling party act in ways that violate the best 
traditions of the United States.
    Dr. Shelton, the bank pulled its new investment projects in 
Russia after 2014 or stopped new investment projects in Russia 
following a declaration by the European Council after the 
invasion of eastern Ukraine. What is your sense of whether that 
decision has been impactful at all on the Russian calculus, and 
what are the things Russia would need to do in order to restart 
investment? And there is a sizeable portfolio that is already 
there that exists of over $3 billion that the bank is still 
managing. Does Russia care that the bank has turned off new 
investment?
    Dr. Shelton. I think they care very much. Russia was the 
largest recipient of EBRD financing, and prior to stopping the 
program in July of 2014, financing for Russia was 22 percent of 
their portfolio. It was roughly 8.2 billion euros, and it was 
whittled down very, very quickly over the next 3 years. It is 
down to 2.8 billion euros, so roughly $10 billion down to $3.4 
billion. That is a reduction down to less than 8 percent of the 
portfolio. So I think for a country like Russia that is 
desperately seeking infrastructure financing, it was a very 
strong message. And the sentiment of the majority of the 
shareholders has been made very clear to EBRD management and 
staff that there is no point in bringing new projects involving 
Russia to the attention of the board of directors because they 
will not be inclined to consider any such thing until Russia 
conforms to what is required under the Minsk Agreement. And 
they would have to go back from their military aggression, and 
it would have to be demonstrated in a very convincing way.
    Senator Murphy. And so you do not perceive backsliding on 
that question, internal weakness regarding reinvestment in 
Russia unless, at the very least, Minsk is complied with. You 
are not there.
    Dr. Shelton. Well, not having been confirmed, but my sense 
is that the EBRD directors--and while we have 10 percent, it 
takes a majority. In combination with the G-7, we have about 57 
percent of the vote. And the European Union is well represented 
at that bank and has been in alignment with regard to financing 
for Russia. So my expectation is it would have to be a clear 
reversal.
    Senator Murphy. I would just ask one question of Mr. Pence 
and then we can move on.
    Either you or Senator Johnson noted that they are taking 
over the Arctic Council from the United States--the 
chairmanship. One of their priorities is the full 
implementation of the Paris Climate Agreement. Can you share 
with us your personal feelings on whether the United States 
should reenter the Paris Climate Agreement and how you will 
deal with the deep disappointment there that the United States 
is pulling out? This is a friction point in general with 
European countries, but for the country you are going to 
particularly important given their belief that the Paris 
Climate Agreement is integral for the future preservation of 
the Arctic.
    Mr. Pence. Thank you, Senator.
    Obviously, Finland and its neighboring countries are fully 
in favor of the Paris Agreement. I acknowledge that President 
Trump has been clear in his desire to leave the agreement 
behind. I also believe the President has been clear that United 
States policy will continue with respect to a number of many 
provisions of the Paris deal.
    Having said that, I believe that the administration will 
signal, has signaled its intention to participate in further 
negotiations on the subject, and we will see what comes of it.
    Senator Murphy. He has got diplomatic skills already. 
[Laughter.]
    Senator Murphy. Well said. I actually said that as an 
actual compliment. So I did not mean that facetiously.
    Senator Johnson. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks and congratulations to the nominees.
    Mr. Traina, you will forgive me. I am going to focus my 
attention on the Virginians. But actually I will probably have 
a question for you too. I want to especially congratulate Dr. 
Shelton and Mr. Pence from Virginia for being nominated. I 
actually will have a question for you, Mr. Traina, too.
    But first thing to Mr. Traina and Mr. Pence, just a piece 
of advice because you will be the head of country missions. 
When I travel as a member of the Foreign Relations committee, 
one thing I try to do is meet in countries with the first and 
second tour FSOs when I go to embassies, and I have fascinating 
discussions with them. I usually do not want the Ambassador in 
the room, and I meet with the first and second tour FSOs. And I 
tell them you have achieved an amazing job that is really hard 
to get. Tell me, after a little bit of experience, what may 
make you stay and make this a career and what is frustrating 
and may make you depart.
    And they never complain about their ambassador. I have 
never had that happen. But they do complain about red tape and 
challenges. Some of them say we have to get so intensely 
security vetted to get the job, and then once I get the job, if 
I want to order five pencils, I have to go through an amazing 
process because they think I am going to steal the five pencils 
or something. So those discussions are interesting.
    You will be in charge of some fantastic public servants, 
and I would encourage you to do all you can do to make them 
feel like they can make an entire career out of it because I 
think we really need them.
    Mr. Pence, I wanted to ask a question a little bit about 
Senator Murphy on the Arctic Council. Finland has taken a 2-
year position as the chair of the council following the United 
States. In preparation for this, how much do you know about 
what the priorities are either of the United States or Finland 
or the entire council right now? What are the areas you think 
the council will be devoting its attention to over the next 
couple years? We talk a lot about this on the Armed Services 
committee where I also serve. But I am curious as to your 
understanding about what the priorities of the council or the 
U.S. or Finland might be.
    Mr. Pence. Thank you, Senator, for the question.
    The Arctic Council itself has enunciated what its 
priorities are: the security of the Arctic, the preservation of 
the ecological situation, the climate of the Arctic, the free 
and open ability of nations to transit the area in a time of 
clearing seas. And they expect overall to ensure the safety of 
bordering nations and those who employ it. They are also 
acutely aware that with the change in the climate and the 
melting of the ice that the Arctic is going to become an 
increasingly direct and profitable route for international 
trade that is engaged. It is going to be more important and a 
cheaper avenue than the Suez Canal. The geopolitical 
consequences of that are going to be extraordinary.
    They are also--Finland, as we are--we are acutely concerned 
about the militarization of the Arctic. I believe the Russians 
have 16 bases they have either opened or are reopening. They 
are building a number of airfields up there. They have 40-some 
heavy nuclear powered--excuse me. They are not all nuclear 
powered--40 heavy icebreakers in the area. They have a big head 
start of us up there, to which we, Finland, and the free world 
needs to respond.
    Senator Kaine. Thank you for that.
    Let me ask you each, Mr. Traina and Mr. Pence, a question 
dealing with another aspect of our military, which is NATO. 
Both Finland and Austria--neither are NATO members, but both 
are participating with NATO in some critical ways. Why do you 
not talk about the current state of the relationship between, 
first, Austria and then Finland in NATO and whether you see any 
dramatic change in their relationship in the coming years?
    Mr. Traina. Thank you, Senator. Thank you for that 
question.
    As you note, Austria is a nonaligned nation, but they are 
part of the Partnership for Peace initiative associated with 
NATO, and they also are really very actively participating in 
numerous peacekeeping initiatives. So currently they are in 14 
different peacekeeping initiatives in places like Bosnia-
Herzegovina and Kosovo. Kosovo, obviously, is a NATO 
initiative, the peacekeeping there. So while they are by policy 
nonaligned, they are really a great partner in a lot of these 
areas, as well as sort of general crime fighting and 
trafficking and other areas like that.
    Senator Kaine. Thank you.
    Mr. Pence?
    Mr. Pence. Thank you, Senator.
    First, indeed, Finland is not a member of NATO. It is 
involved in various NATO operations, including the operation 
Resolute Support in Afghanistan. Finland has participated in 
actions in Iraq. They are in a unique position to join or not 
to join. At present, a majority, a slight majority but a 
majority nevertheless, of the Finnish people are opposed to 
Finland joining NATO. That may change, but until it does, they 
are not a member. But they work closely with NATO and permit 
certain actions within their country in furtherance of NATO 
policies.
    Senator Kaine. Thank you very much.
    Dr. Shelton, if I could ask you one question. On the 
Foreign Relations committee, we are a little bit creatures of 
our region. So almost all my work for 5 years has been the 
Middle East and the Americas, and I have done little work on 
the EBRD.
    But I was noting something that I was curious about. One 
country has graduated from the EBRD and that is the Czech 
Republic in 2008. What are criteria used to gauge whether a 
country kind of is sufficiently developed to graduate out? Are 
there other countries close to graduating? Does the EBRD--as we 
expand the number of countries we operate in, is there any 
danger of the EBRD spreading itself too thin with the resources 
that it has?
    Dr. Shelton. Thank you for the question, Senator Kaine.
    Graduation is a priority through the international affairs 
part of the Treasury Department, and we encourage that. There 
is a graduation process at the EBRD, and you are correct that 
only that single country, the Czech Republic, has graduated.
    The slowness in having countries qualify to proceed I think 
to some extent reflects a very long economic recovery in Europe 
since the financial crisis of 2008 and 2009. Also, I believe 
that countries have been affected by Russia's aggression, and 
they are reluctant to give up sources of financing. They feel 
pressure with regard to energy security. And so they have 
wanted to stay engaged with the EBRD.
    It would be my focus, if confirmed, to have a more 
transparent, rules-based process for evaluating when a country 
is successfully moving toward graduation. They do at the EBRD a 
country analysis for each new recipient and that also includes 
a political assessment because they not only have to embrace 
democratic principles as an ideal, but they have to demonstrate 
in a genuine way that they are applying them.
    Senator Kaine. Thank you very much.
    Thank you, Mr. Chair.
    Senator Johnson. Thank you, Senator Kaine.
    You have been asked some specific questions. Let me just 
throw it open, a little more general question. I will ask each 
one of you the same one. I just want your opinion, your 
evaluation, if you are confirmed, what is going to be the top 
issue--if you have issues, you can expand it, but I mean really 
the top issue you think you will be dealing with. And what will 
be the top opportunity in terms of the relationship between the 
U.S. and either your country or organization? I will start with 
you, Mr. Pence.
    Mr. Pence. Thank you, Senator.
    I am a student of Cicero who lived about 2,000 years ago. 
If I may paraphrase part of one of his works. Civil liberties 
are meaningless if the state is not secure. That is the first 
and foremost and last sine qua non on the international stage. 
We need to assure ourselves and the Finnish people and each 
other and the rest of the free world really that there will be 
peace.
    Thank you.
    Senator Johnson. Dr. Shelton?
    Dr. Shelton. Thank you, Mr. Chairman.
    I do think energy security for Europe is a top priority. 
And EBRD financing has provided resources for energy 
infrastructure. We need to make sure that the projects provide 
alternative routes, alternative suppliers, and an array of 
different types of energy available to countries so they are 
not subject to intimidation.
    I would seek to advance the national security interests of 
the United States, as well as the economic interests. American 
companies should have a chance not only to bid on projects. So 
we need to have a transparent procurement process. But also, 
the projects should be oriented to increase growth so that 
American products can find export markets in those recipient 
countries.
    I see this, if confirmed, to be an opportunity for the 
United States to leverage its capital investment through strong 
leadership working with our allies very closely to advance our 
strategic interests and to try to shape events across Europe 
and the other regions of operation which now include the Middle 
East and northern Africa and Central Asia. We want to have the 
most advantageous economic and political outcomes for our own 
nation.
    Senator Johnson. Thank you, Dr. Shelton.
    Mr. Traina?
    Mr. Traina. Thank you so much, Senator.
    So, first, priority. Priority will always be security, the 
security and safety of my mission, of the 15,000 or so 
Americans who reside in Austria and the 700,000 or so Americans 
who visit Austria every year.
    Issue. I think currently the energy issue is a significant 
one that merits a lot of thought and attention.
    And opportunities. I think leveraging our strong 
relationship with Austria vis-a-vis their neighboring nations 
and shoring those nations up, as well as business. I think 
Austria is an advanced economy, and there is a lot of 
opportunity for us to do more together in that arena.
    Thank you.
    Senator Johnson. Thank you, Mr. Traina.
    Senator Murphy?
    Senator Murphy. Just two final questions.
    Mr. Traina, let me build upon the opportunity you 
acknowledged, which is to work with neighboring countries. One 
of the points of tension between Austria and neighboring 
countries is this issue of immigration that I had mentioned. 
The new government has advocated for an array of measures 
including border closures to reduce immigration not only into 
Austria but also through Austria into Europe. And that often 
runs counter particularly with the generally more liberal 
refugee policies of Italy and Germany.
    So what is the role of the United States to try to make 
sure that Austria's restrictive immigration policy does not end 
up, A, pulling apart Europe and, B, simply transferring the 
burden of refugee flows which continue on to other countries?
    Mr. Traina. Thank you, Senator, for that question.
    I acknowledge it is absolutely an issue, a highly topical 
issue right now. I think there is an opportunity for us to work 
directly with them to continue to communicate our thoughts and 
opinions on this. There is also an opportunity via the EU. 
There is discontinuity right now between the EU's position and 
Austria's position on this same issue. And so I think we 
triangulate and we have continual dialogue on this.
    Senator Murphy. And, Dr. Shelton, I want to pick up on one 
of the things you mentioned in your last answer, which was 
energy security. How do we compete with a Russian energy export 
model that is based on outright subsidy to drive down pricing? 
Whereas we are using more traditional financing vehicles to try 
to counter that influence. I have failed to understand how we 
compete with the Russians on energy security without a direct 
subsidy of our own coming either from the United States or from 
the Europeans. So how does a bank try to deal with the issue of 
energy security when the Russians are just throwing cash into 
these projects? Nordstream 2, for instance, cannot work as a 
pure financial play. It only works with just a heavy Russian 
subsidy on the front and back end.
    Dr. Shelton. Thank you so much for that question, and I 
think you make an excellent point.
    We have seen that Russia is willing to subsidize activities 
that are not in their economic interests, and we can only 
assume for purposes of political power using energy as a 
weapon.
    What the EBRD has done, which I think is quite wise, is 
they have provided significant financing for the southern gas 
corridor. The financing projects have aimed both at the gas 
fields--these are deepwater wells in the Caspian Sea--and also 
the pipelines to guarantee alternative delivery routes. And the 
EBRD does work based on market principles, but they have been 
able to put together very attractive and sometimes creative 
financing for special projects. They have the confidence of 
Western providers of foreign direct investment. They work well 
with banks. So they can provide financing with highly desirable 
attributes and in that way be competitive.
    Senator Murphy. Again, let me thank you all. I think you 
will all be confirmed hopefully soon. And we really look 
forward to--those of us who work on transatlantic issues, are 
heavily involved in them look forward to working with all three 
of you. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    Again, I want to thank the nominees for your willingness to 
serve. I want to thank their families for your willingness to 
support your family members. To the Traina children, I 
certainly understand the concern about leaving their friends, 
but it is a pretty exciting opportunity. Your dad is doing a 
pretty important thing. So I am sure you will enjoy your time 
in Austria.
    With that, again, thank you for providing your testimony, 
your responses.
    The hearing record will remain open for statements or 
questions until the close of business on Monday, March 5th.
    This hearing is adjourned.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
       Submitted to Robert Frank Pence by Senator Robert Menendez

    Question 1. Do you commit to report regularly to the Senate Foreign 
Relations Committee on efforts by the Russian Government to interfere 
in the democratic processes of Finland?

    Answer. If confirmed, I will ensure the U.S. Mission to Finland 
stands firmly with Finland in countering Russia's malign influence and 
will report on the Russian Government's attempts to interfere with 
Finland's democratic processes.

    Question 2. What specific measures will you take to cooperate with 
the European Center of Excellence for Countering Hybrid Threats?

    Answer. At Finland's initiative, nine countries, including the 
United States, signed a memorandum of understanding (MOU) establishing 
the European Center of Excellence for Countering Hybrid Threats in 
April 2017. Since then, four additional countries have accepted 
invitations to participate in cooperation under the MOU, and another 
three have expressed serious interest in participating. NATO and the EU 
will join in the activities of the Center. The Center will serve as a 
hub of expertise to complement and bolster national and institutional 
efforts to strengthen our capabilities to counter hybrid threats. If 
confirmed, I will continue to work with our Finnish counterparts, the 
other states, NATO, and the European Union, who participate in the 
Center's work to develop more effective cooperation against the diverse 
array of hybrid threats and to expand U.S. participation by all 
relevant sectors. Further, if confirmed, I would employ every lawful 
means available under U.S. law in completing this task.
Diversity
    Research from private industry demonstrates that, when managed 
well, diversity makes business teams better both in terms of creativity 
and productivity.

    Question 3. What steps will you take to ensure that supervisors and 
managers within the embassy are fostering an environment that's diverse 
and inclusive?

    Answer. I appreciate the importance of fostering diverse and 
inclusive teams. Throughout my professional career and experience in 
business, I have seen the value of diversity in leadership positions. 
In keeping with Secretary Tillerson's strong emphasis on diversity, if 
confirmed I will develop an inclusive work environment at Embassy 
Helsinki that encourages all perspectives. I will ensure that all 
supervisors receive regular formal training and guidance on EEO 
principles, diversity, and inclusion. In addition to leading by 
example, I will monitor the supervisors at the Embassy to ensure they 
are fostering an environment that is diverse and inclusive.

    Question 4.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the embassy?

    Answer. If confirmed, first and foremost, by my actions I intend to 
create an environment that is diverse and inclusive. I recognize that, 
to a large extent, the composition of the Mission Team has already been 
established by others. Nevertheless, all employees will quickly come to 
understand that, whatever their backgrounds may be, we will form one 
united, cohesive team that will operate without discrimination and 
without any tolerance for behavior that lacks respect for others or 
that evinces any hint of dishonesty or other improper behavior. 
Similarly, through both my actions and the actions of supervisors, all 
members of the staff will understand what they need not tolerate and 
what actions of theirs will not be tolerated. I will, simultaneously, 
encourage all employees to report any breeches of policy with respect 
to conduct. I will assure my team that retribution will not be condoned 
and that U.S. law, including policies and regulations of the State 
Department, will be promptly and scrupulously followed.

    Question 5.  As a possible official of the Trump administration, 
will you condemn and oppose policies and practices that are derogatory 
and discriminatory on the basis of race, religion, nationality, gender, 
sexual orientation, or gender identity?

    Answer. Yes.

    Question 6.  Will you uphold the rights of all persons to equality 
and freedom from discrimination, and call on Americans to refrain from 
discrimination of any sort?

    Answer. Yes.

                               __________


           Responses to Additional Questions for the Record 
     Submitted to Robert Frank Pence by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. From 1992 to the present I have been intimately involved, 
as a student, teacher, businessman, and as a civic and political 
advocate for positions that fortify the preservation of our rights and 
liberty. I have given countless lectures, and participated in myriad 
conferences, domestically and abroad, to advocate for democracy, the 
rule of law, and the preservation of human rights. I have been an 
outspoken advocate of democracy, particularly of American values, and, 
additionally, of causes related to Israel, schools for women in 
Afghanistan, and other causes that my wife Suzy and I have deemed 
worthy of our support, time, and money.
    The arts and cultural enrichment are integral to a democracy and 
have been at the center of my life. associated with the Kennedy Center 
for the past decade plus. For about twelve years I served on various 
boards at the Kennedy Center and with my wife Suzy have represented the 
Kennedy Center abroad as a part of the Kennedy Center Gold Medal in the 
Arts program. These week-long, intensive, high level programs get to 
the root of our relations with other nations, their citizens, and their 
cultures.

    Question 2. What are the most pressing human rights concerns in 
Finland today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Finland? What do 
you hope to accomplish through these actions?

    Answer. Finland has a strong record on human rights and is a close 
partner for the United States in promoting human rights around the 
world. Finland is one of the world's most generous providers of 
development aid. NGOs have reported incidents of anti-Muslim and anti-
immigrant speech and sentiment in Finland. Authorities generally 
investigate, and where appropriate, prosecute such cases. If confirmed, 
I will encourage Finland to continue protecting human rights at home 
and abroad. I will also regularly engage with representatives from 
government, political parties, and nongovernmental organizations to 
stress the importance of tolerance and diversity and to share best 
practices and new ideas for promoting human rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Finland in 
advancing human rights, civil society and democracy in general?

    Answer. Human rights are widely respected in Finland and its legal 
framework for protecting human rights meets international standards, so 
any obstacles to addressing human rights issues must be viewed in this 
context. Civil society and democratic institutions are both strong and 
inclusive in Finland. To the extent that Finland exhibits human rights 
problems, they are largely societal and are adequately addressed by the 
country's judicial system, government institutions, and non-
governmental organizations. If confirmed, I will work with those 
institutions and organizations to exchange experiences and best 
practices to further our shared values.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Finland? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Finland. If confirmed, I will ensure that 
Embassy Helsinki staff have access to appropriate training on Leahy Law 
requirements. I will also ensure Embassy Helsinki thoroughly vets 
individuals and units it nominates to participate in U.S.-funded 
security assistance activities.

    Question 5. Will you and your embassy team actively engage with 
Finland to address cases of key political prisoners or persons 
otherwise unjustly targeted by Finland?

    Answer. Finland has a strong human rights record and a generally 
independent and impartial judiciary. There are no reports of political 
prisoners or detainees, or politically motivated prosecutions, in the 
country. If confirmed, I will call out any future cases of this kind if 
they occur, and work with the Finnish Government to encourage their 
resolution in accordance with Finnish and international law and 
commitments.

    Question 6. Will you engage with Finland on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will make matters of human rights, civil 
rights, and governance part of Embassy Helsinki's regular public 
outreach. I believe these are excellent areas for people-to-people 
engagements where our citizens can exchange views, experiences and best 
practices. Given Finland's excellent record on these issues, I will 
also look for opportunities where we can jointly cooperate to provide 
expertise to third countries.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Finland?

    Answer. My investment portfolio includes companies that have a 
presence in Finland. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest. I will divest my 
interests in those companies the State Department Ethics Office deemed 
necessary to avoid a conflict of interest, and will remain vigilant 
with regard to my ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. First, I will attempt to create a work environment in which 
individual talents and skills will flourish and be recognized. Second, 
it will be my policy that no employee will interfere with the efforts 
of any other employee to pursue my first objective and the enjoyment 
thereof by other employees. My experience in business, over a period of 
47 years, has lead me to conclude, as did the ancient philosophers and 
all of the great artists and thinkers of history, that there is no one 
person, or school of thought, or culture, or religion, that contains 
all of the best attributes of mankind. In my businesses, which have 
employed, on average, about 150 people at one time, I have come to 
appreciate, enjoy, and profit by the amalgamation and enhancement of 
human knowledge which is not culturally dependent. At any one time (and 
for most of the time), my companies have employed individuals from, 
among others, Jordan, Afghanistan, El Salvador, Mexico, Guatemala, 
Brazil, Egypt, Korea, the Dominican Republic, UAE, and many countries 
in Africa. Similarly, at our Dulles Expo Center in Chantilly, VA, we 
regularly stage major business and cultural events for organizations 
from Japan, India, and Pakistan, to name but the largest groups of 
attendees. Each of our employees knows, because this is our policy, 
that upward movement in our organizations is our goal and that it is 
realizable. By the nature of our businesses, we are in service to 
others. To be clear, we do not discriminate on any basis and we do not 
allow our employees to do so either. These views will be well received, 
I am sure, by the Finns whose president, Sauli Niinist0, said in his 
2017 New Year's Address that ``we must proceed together.''

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. First and foremost, by my actions I intend to create an 
environment that is diverse and inclusive. I recognize that, to a large 
extent, the composition of the Mission Team has already been 
established by others. Nevertheless, all employees will quickly come to 
understand that, whatever their backgrounds may be, we will form one 
united, cohesive team that will operate without discrimination and 
without any tolerance for behavior that lacks respect for others or 
that evinces any hint of dishonesty or other improper behavior. I will 
schedule frequent meetings with supervisory personnel to insure that 
official policy is both understood and implemented. Similarly, through 
both my actions and the actions of supervisors, all members of the 
staff will understand what they need not tolerate and what actions of 
theirs will not be tolerated. I will, simultaneously, encourage all 
employees to report any breeches of policy with respect to personal 
conduct. I will assure my team that retribution will not be condoned 
and that U.S. law, including policies of the State Department, will be 
promptly and scrupulously followed.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Robert Frank Pence by Senator Jeanne Shaheen

    Question 1. How would you approach the question of Finland's 
possible membership in NATO if Finland decides to seek it? Of course, 
the accession of a new member of the alliance is a question for all 
NATO allies, but what factors would you consider in making a 
recommendation for or against such request from the perspective of the 
U.S. Ambassador to Finland, if you are confirmed?

    Answer. The United States would welcome such a strong and capable 
partner's decision to apply for membership in the Alliance, but the 
decision on whether to do so is up to Finland's political leadership 
and the Finnish people. Opinion polls indicate a significant number of 
Finnish people support joining NATO, but a slight majority continues to 
oppose membership. While not a NATO Ally, Finland maintains a high 
level of cooperation and interoperability with the Alliance and has 
been an active member of NATO's Partnership for Peace since its launch 
in 1994. At the 2014 Wales NATO Summit, Finland became one of a handful 
of Enhanced Opportunities Partners (EOP) with increased access to NATO 
political consultations and training/exercises. Finland has been a 
member of the NATO Response Force since 2012 and the NATO Strategic 
Airlift Capability program since its inception in 2008. If confirmed, I 
will continue to work with Finland to deepen our bilateral security 
cooperation, acknowledging the importance of maintaining NATO's Open 
Door policy for Finland.

    Question 2. Finland has been seeking to diversify its energy supply 
sources and enhance its energy independence, in part by deepening its 
integration in the wider European, Nordic, and Baltic energy markets. 
What would you do, if confirmed, to encourage this? How would you help 
position American companies to participate?

    Answer. Finland has a vital role to play in Europe's energy 
security and diversification, in particular as a leader in energy 
efficiency and biofuels research and development. Its energy policies 
align with the EU, and its energy targets generally meet or exceed EU 
requirements. Finland is investing in liquefied natural gas terminals 
and, in October 2015, the Finnish Government decided to move forward 
with the Balticconnector gas pipeline to Estonia, which would provide 
an opportunity to diversify Finland's supply via the European gas 
network. The European Commission will provide 187.5 million euros of 
Balticconnector's estimated 250 million euro cost. U.S. companies, such 
as General Electric, are already major players in Finland's energy 
sector. The greatest opportunity is for small U.S. energy innovators to 
partner with Finnish firms to develop and apply new energy technologies 
not only in Finland but in the EU. I understand that the U.S. Embassy 
in Helsinki has and will continue to prioritize promoting these U.S. 
business opportunities through events such as Vaasa Energy Week and in 
sectors such as forestry that hold great promise as a new source of 
renewable energy. If confirmed, I will work to support continued energy 
diversification across Europe, encouraging Finland to support projects 
that will diversify Europe's energy supply and oppose those that 
threaten it, such as Nord Stream II.

    Question 3. Despite its long-standing economic ties with Russia, 
Finland has continued to support existing EU sanctions on Russia. If 
confirmed, what will you do to encourage the Finnish Government to 
maintain its support for the sanctions regime until the Minsk 
agreements for Ukraine are fully implemented?

    Answer. Finland has been a strong defender--along with the United 
States and other European partners--of Ukraine's sovereignty and 
territorial integrity. Finnish officials have consistently reiterated 
their firm opposition to Russia's occupation and attempted annexation 
of Crimea, and have called on Russia to fulfill its commitments under 
the Minsk agreements to resolve the conflict in eastern Ukraine. 
Finland has voted to maintain EU sanctions against Russia and has made 
clear sanctions should remain until Russia fulfills its Minsk 
commitments, including reducing the violence in eastern Ukraine, 
removing heavy equipment and weapons, allowing full and unfettered 
access to OSCE monitors, and returning control of the international 
border to Ukraine. If confirmed, I will work to ensure U.S. and Finnish 
policies toward Russia remain closely coordinated.

    Question 4. Finland has a highly industrialized, competitive market 
economy. If confirmed, what would you do to expand bilateral trade 
between our countries, particularly in the technology sector, which is 
an area where the United States and Finland both excel?

    Answer. The United States and Finland work together with the 
European Union to promote job creation and prosperity on both sides of 
the Atlantic. The United States' trade relationship with Finland is 
driven in large part by innovative information and communications 
technology enterprises. Finland shares a commitment to open commercial 
data flows that support trade and investment in these sectors. If I am 
confirmed as Ambassador, one of my top priorities will be promoting 
fair and reciprocal trade and investment, building upon the 
considerable work the U.S. Embassy in Helsinki has already done. I will 
encourage the sharing of best practices while helping American 
companies recognize business opportunities in Finland and will showcase 
for Finnish companies the many opportunities to invest in the United 
States. United States exports to Finland were valued at $1.5 billion in 
goods in 2017 and $2.1 billion in services in 2016. United States 
imports from Finland were $5.9 billion in goods in 2017 and $2.5 
billion in services in 2016. There is potential to increase both U.S. 
exports to Finland and Finnish foreign direct investment in the United 
States. If confirmed, I will make this a priority for all agencies 
working in the U.S. Mission to Finland.

    Question 5. I have been outspoken in drawing attention to Russian 
malign influence activities in the United States and elsewhere. I was 
pleased to see that in April 2017, the United States joined Finland and 
several other NATO and EU countries in establishing a new, Helsinki-
based multinational Center of Excellence for Countering Hybrid Threats 
aimed at helping to counter cyber attacks, disinformation, and 
propaganda. If confirmed, will you support this effort? How can the 
United States and Finland deepen our cooperation in this area?

    Answer. The Transatlantic Community faces continued security 
threats from Russia. Finland has leveraged its geography and historical 
experience to develop a nuanced and knowledgeable approach to Russia. 
Finland is pragmatic and practical when it comes to Russia--but also 
recognizes Russia's challenge to the European security order. At 
Finland's initiative, nine countries, including the United States, 
signed a memorandum of understanding establishing the European Center 
of Excellence for Countering Hybrid Threats in April 2017. Since then, 
four additional countries have joined, and another three have expressed 
serious interest in joining. NATO and the EU will participate in the 
activities of the Center. The Center will serve as a hub of expertise 
to complement and bolster national and institutional efforts to 
strengthen our capabilities and counter hybrid threats. If confirmed, I 
will continue to work with our Finnish counterparts and the other 
member states of the Center to develop more effective cooperation 
against the diverse array of hybrid threats, and to expand U.S. 
participation by all relevant sectors.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Dr. Judy Shelton by Senator Robert Menendez

Russia
    Question 1.  What is the policy of the United States regarding new 
EBRD projects in Russia?

    Answer. The United States does not support any new EBRD projects in 
Russia. In response to guidance from the United States and our G-7 
partners, and the European Union, EBRD management has not brought 
forward any new projects for Russia since July 2014, following Russia's 
military aggression in Crimea.
Diversity and Combatting Hostile Work Environments
    Research from private industry demonstrates that, when managed 
well, diversity makes business teams better both in terms of creativity 
and productivity.

    Question 2.  What steps will you take to ensure that supervisors 
and managers within the European Bank for Reconstruction and 
Development (EBRD) are fostering an environment that's diverse and 
inclusive?

    Answer. If confirmed, I will use my oversight role on the EBRD's 
Board of Executive Directors to try to ensure that EBRD management 
fosters an environment that is diverse and inclusive. I will also 
advocate for these issues to be considered, as appropriate, in the 
development and review of human resources policies in the EBRD's Budget 
and Administrative Affairs committee.

    Question 3.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the EBRD?

    Answer. If confirmed, I will promote, mentor and support my staff 
who come from diverse backgrounds and underrepresented groups, 
consistent with fair management practices and relevant EBRD policies. 
The EBRD has increased its emphasis on inclusion in its operations, 
adding inclusion as a key quality of successful transition to a 
sustainable market economy.

    Question 4.  As a possible official of the Trump administration, 
will you condemn and oppose policies and practices that are derogatory 
and discriminatory on the basis of race, religion, nationality, gender, 
sexual orientation, or gender identity?

    Answer. If confirmed, I will condemn and oppose policies and 
practices that are derogatory and discriminatory on the basis of race, 
religion, nationality, gender, sexual orientation, or gender identity.

    Question 5.  Will you uphold the rights of all persons to equality 
and freedom from discrimination, and call on Americans to refrain from 
discrimination of any sort?

    Answer. If confirmed, I will uphold the rights of all persons to 
equality and freedom from discrimination, and call on Americans to 
refrain from discrimination of any sort.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Dr. Judy Shelton by Senator Jeanne Shaheen

    Question 1. The EBRD charter states that countries must be 
committed to applying the principles of multiparty democracy, 
pluralism, and market economics in order to qualify for EBRD loans. I 
believe it is important for the international community to assist the 
countries of the Western Balkans to successfully complete their 
transitions to democratic, market-oriented members of the transatlantic 
community. What is the EBRD doing in this region? If confirmed, what 
will you do to intensify this effort?

    Answer. It is true that countries in the Western Balkans are still 
transitioning to well-functioning, sustainable market economies. The 
state remains a major player in key industries in several countries of 
the region, significant progress on privatizations remains elusive, and 
private sector businesses operate in a challenging business environment 
plagued by weak rule of law, a sizable informal sector, corruption and 
cumbersome tax administration, and difficulties in getting reliable 
electricity supply.
    The EBRD has been and continues to be an important partner in the 
region, delivering close to $800 million in new investments in both 
2016 and 2017, coupled with policy dialogue and technical assistance. 
The EBRD has focused in particular on enhancing private sector 
competitiveness, strengthening the investment climate, and improving 
regional connectivity and integration through both hard infrastructure, 
like roads and energy links, and softer elements like harmonizing 
regulations and tariffs. Last month the EBRD launched a new one-stop 
regional investment platform for interested investors.
    A key priority going forward should be increased privatization 
advocacy. If confirmed, I would like to help encourage the EBRD to 
maintain an intensified focus on reforms, commercialization efforts, 
and corporate governance improvements in the region's state-owned 
enterprises in an effort to unlock pre-privatization investments and 
eventual privatization progress. In addition, I would call on the EBRD 
to enhance its work to advance government and corporate reforms to 
improve economic and market institutions, transparency, competition, 
and the overall investment climate across the Western Balkan economies. 
I will also encourage the EBRD to continue to provide candid political 
assessments for its countries of operation, since political 
developments affect aspects of the transition to a market economy.

    Question 2. Environmentally sound and sustainable development is 
central to the EBRD's mandate. In light of the administration's 
decision to withdraw from the Paris Climate Agreement, I'm curious to 
hear your views on climate change. How would you consider this issue as 
it relates to the EBRD's work?

    Answer. I believe that it is important for countries to have 
affordable and reliable access to energy. If confirmed, I will evaluate 
each EBRD energy project on an individual basis, weighing various 
factors including the project's potential benefits for transition to a 
sustainable market-based economy. If confirmed, I will work closely 
with the Treasury Department to review energy projects against the new, 
broader, objectives recently set forth by Treasury. This includes 
supporting energy projects that go to the core of supporting a 
country's development. This can and should include helping countries 
access and use fossil fuels more cleanly and efficiently. By pursuing 
projects that employ a mix of energy sources, the EBRD can support the 
development of robust, efficient, competitive, and integrated global 
markets for energy.

     Responses to Additional Questions for the Record Submitted to
                Trevor Traina by Senator Robert Menendez

    Question 1. Do you commit to report regularly to the Senate Foreign 
Relations Committee on efforts by the Russian Government to interfere 
in the democratic processes of Austria?

    Answer. If confirmed, I will ensure the United States Mission to 
Austria stands firmly with Austria in countering Russia's malign 
influence and will report on the Russian Government's attempts to 
interfere with Austria's democratic processes.

    Question 2. What will your priorities be with respect to 
coordinating with the Austrian Government on policies on the Western 
Balkans?

    Answer. If confirmed, I will encourage the Austrian Government to 
support regional peacekeeping efforts by maintaining its substantial 
troop numbers in NATO's Kosovo Force (KFOR). Austria's KFOR 
participation is essential to mission success and the creation of a 
stable, secure environment that allows Kosovo and Serbia to advance 
their political dialogue. I will also urge the Austrians to push the 
Western Balkan countries to accelerate political and economic reforms 
that are necessary for EU accession. These reforms will build 
resilience against Russian attempts to create instability in the 
Balkans through bribery, abuse of energy and trade ties, and use 
propaganda to advance its agenda. Austrian Chancellor Kurz has pledged 
to focus on the Western Balkans during Austria's EU presidency 
beginning July 1.

    Question 3. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What steps will you take to ensure that 
supervisors and managers within the embassy are fostering an 
environment that's diverse and inclusive?

    Answer. Good management starts at the top, and, if confirmed, I 
would model to supervisors the kinds of behaviors I would want them to 
extend to their teams. Good management also requires an open door, 
clear communication of goals, and shared objectives, and I would work 
with my team to ensure that our shared environment is respectful and 
inclusive. If confirmed, I will ensure that projects with a scope for 
leadership and opportunities to excel are distributed equally among 
sections, people of different ranks, cones, experiences, and 
backgrounds, giving everyone an equal opportunity to make a difference 
in the Mission's impact on our foreign policy goals. I would also be 
respectful of work-life balance for all employees, recognizing that 
time at home with families is good for both employees' health and the 
health and productivity of an organization.

    Question 4.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the embassy?

    Answer. I currently run an extremely diverse company, with over 50 
percent female employees and a wide variety of ethnicities and sexual 
orientations. I am proud of this and have worked hard to both mentor 
and nurture my team members. Good management takes time, listening 
skills, patience, and empathy. When people of various viewpoints and 
backgrounds feel empowered to work together, great results ensue. I 
would bring this experience to the Mission.

    Question 5.  As a possible official of the Trump administration, 
will you condemn and oppose policies and practices that are derogatory 
and discriminatory on the basis of race, religion, nationality, gender, 
sexual orientation, or gender identity?

    Answer. Yes.

    Question 6.  Will you uphold the rights of all persons to equality 
and freedom from discrimination, and call on Americans to refrain from 
discrimination of any sort?

    Answer. Yes.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Trevor Traina by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I believe all humans have the right to freedom from tyranny 
and the opportunity to live their lives with freedom and respect. I 
recall being a child in California in the 70s and witnessing whole 
families at the airport waiting for loved ones to arrive from 
repressive countries to start new lives of freedom in the United 
States. It left a mark and taught me that not everyone enjoys the 
freedoms that we do. At Princeton I wrote my thesis on the treatment of 
the indigenous peoples of Alaska and the Alaska Native Claims 
Settlement Act, which was intended to correct for past wrongs. I serve 
as a trustee of San Francisco's Grace Cathedral which, along with 
Bishop William Swing, is a pioneer in religious freedom and in dialogue 
amongst the world's religions. My current company was designed to 
benefit people in need around the world with every single transaction 
we facilitate. We support over 200 different causes from the ACLU at 
home to educational groups in Nepal and everything in between. Beyond 
raising millions to help people globally, I feel our model of for-
profit commerce harnessed to support people in need is one that has 
wide-reaching application and represents a promising future.

    Question 2. What are the most pressing human rights issues in 
Austria? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Austria? What do 
you hope to accomplish through these actions?

    Answer. Austria has a strong record on human rights--we are 
important partners in addressing universal human rights challenges 
around the world based on the common values we share. The State 
Department's annual Human Rights and International Religious Freedom 
Reports list challenges Austria faces, including instances of 
discrimination against minority groups. There was a 97 percent increase 
in anti-Semitic incidents between 2014 and 2016, and a 62 percent 
increase in anti-Muslim incidents in 2016 over those reported in 2015. 
Jewish and Muslim groups have raised concerns about what they 
considered to be anti-Semitic and anti-Islamic sentiment within the 
Freedom Party (FPOe). If confirmed, I will continue our work advocating 
for increased tolerance for all.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in [country] in 
advancing human rights, civil society and democracy in general?

    Answer. Human rights issues around the world often seem 
intractable, but Austria is a friend we can work with to address them. 
Austria and the United States share common values, including the 
importance of protecting human rights, though sometimes we have 
different areas of emphasis or different approaches to problems such as 
rising intolerance toward Jews, Muslims, and other religious or ethnic 
groups. If confirmed, I will continue our work with Austria to ensure 
the coordination of our efforts on promoting tolerance through civil 
society empowerment and coalition building. For example, we can work 
together on combatting hate crime and hate speech on line while 
preserving freedom of expression and religious freedom. Ensuring that 
we keep lines of communication open will maximize our joint impact on 
this and other challenges.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Austria? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Austria, including human rights 
activists and religious groups, and the organizations that represent 
them. If confirmed, I will ensure the Department continues to 
thoroughly vet all individuals and units nominated to participate in 
U.S.-funded security assistance activities, in accordance with the 
Leahy law. If there are findings of credible information regarding 
gross violations of human rights, I would take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible parties do not participate in U.S.-funded 
training.

    Question 5. Will you and your embassy team actively engage with 
Austria to address cases of key political prisoners or persons 
otherwise unjustly targeted by Austria?

    Answer. The State Department's 2016 Human Rights Report states that 
there were no reports of political prisoners in Austria.

    Question 6. Will you engage with Austria on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Austria, including human rights 
activists and religious groups, and the organizations that represent 
them. I also look forward to working closely and collaboratively with 
the USOSCE delegation on the ground in Vienna to address these issues.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Austria?

    Answer. None of my immediate family has economic interests in 
Austria. My cousin owns a home in Austria.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I currently run an extremely diverse company with more than 
50 percent women employees and a wide variety of ethnicities and 
orientations. I am proud of this and have worked hard to both mentor 
and nurture my team members. Good management takes time, listening 
skills, patience, and empathy. When people of various viewpoints and 
backgrounds feel empowered to work together, magical results ensue. If 
confirmed, I would bring this experience to the Mission.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Good management starts at the top, and if confirmed I would 
model to supervisors the kinds of behaviors I would want them to extend 
to their teams if confirmed. Good management also requires an open 
door, clear communication of goals and shared objectives, and I would 
work with my team to ensure that our shared environment is respectful 
and inclusive. If confirmed, I will ensure that projects with a scope 
for leadership and opportunities to excel are distributed equally among 
sections, people of different ranks, cones, experiences, and 
backgrounds, giving everyone an equal opportunity to make a difference 
in the Mission's impact on our foreign policy goals. I would also be 
respectful of work-life balance for all employees, recognizing that 
time at home with families is good for both employees' health and the 
health and productivity of an organization.



                               __________


     Responses to Additional Questions for the Record Submitted to
                Trevor Traina by Senator Jeanne Shaheen

    Question 1. In view of Austria's long-standing business connections 
to Russia, how committed do you believe Austria is to maintaining 
current EU sanctions on Russia in response to its annexation of Crimea? 
If confirmed, what will you do to encourage the Government to keep the 
sanctions in place for as long as necessary?

    Answer. Both Chancellor Kurz and Foreign Minister Kneissl have 
publicly said that they will support the EU consensus on EU sanctions 
on Russia. Maintaining U.S.-EU unity on Russia sanctions until Russia 
fully implements its Minsk commitments and returns Crimea to Ukraine is 
a top U.S. foreign policy priority in Austria. If confirmed, I will 
encourage the Austrian Government to maintain its support for EU-Russia 
sanctions as it has pledged to do, particularly once it assumes the EU 
presidency this July.

    Question 2. In December 2016, the Freedom Party, which is a member 
of the governing coalition, signed a cooperation agreement with 
Russia's Putin-backed United Russia Party. The agreement reportedly 
outlines plans for regular meetings and collaboration on economic, 
business, and political projects. What do you make of this agreement? 
In light of Russia's dismal record of behavior, which includes meddling 
in elections in the United States and elsewhere, how will you approach 
the broader issue of Austrian-Russian relations, if you are confirmed?

    Answer. Countering Russian malign influence is a top U.S. foreign 
policy priority. I am aware of the Freedom Party's cooperation 
agreement with United Russia from 2016. I understand that our embassy 
has expressed concern directly with Freedom Party leadership regarding 
this agreement and the party's history of supporting pro-Russian, anti-
American, anti-NATO policies. If confirmed, I will encourage the 
Austrian Government to continue its support for Western unity with 
respect to relations with Russia. Maintaining transatlantic unity until 
Russia changes its behavior is critical.

    Question 3. Austria is a highly-advanced industrialized country. If 
confirmed, what would you do to expand bilateral trade between our 
countries?

    Answer. Bilateral trade is an important part of our relationship 
with Austria. The United States is Austria's fourth-largest trading 
partner overall and its second largest export market with total two-way 
goods and services trade at approximately $19.1 billion in 2017 and 
U.S. exports to Austria in 2017 at $6.7 billion--up 16.0 percent from 
2016. If confirmed, I would continue to promote U.S. exports to Austria 
and encourage Austrian investment in the United States, particularly 
through the Embassy-supported SelectUSA program. I would use my 
entrepreneurial skills to help American companies realize export 
opportunities in Austria and showcase for Austrian companies the many 
opportunities to invest in the United States.

                               __________

                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding], Gardner, Young, 
Cardin, Udall, Murphy, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Foreign Relations committee will come to 
order.
    Good afternoon. This is a nomination hearing for the 
Honorable Joseph Macmanus of New York, a career member of the 
Senior Foreign Service, class of minister-counselor, to be U.S. 
Ambassador to Colombia; Ms. Marie Royce of California to be an 
Assistant Secretary of State for Educational and Cultural 
Affairs; Ms. Robin Bernstein of Florida to be U.S. Ambassador 
to the Dominican Republic; and the Honorable Edward Charles 
Prado of Texas to be the U.S. Ambassador to Argentina.
    Before the ranking member and I make our remarks, we want 
to recognize our colleagues that are here and have other 
business as well to attend to but wanted to be here today. And 
so I would first recognize Senator John Cornyn of Texas who is 
here to introduce Judge Edward Prado.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman and members 
of the committee. It is an honor to be back before you and 
particularly to introduce my friend, Judge Ed Prado, who has 
been nominated by the President to be the U.S. Ambassador to 
the Argentine Republic.
    Judge Prado and I go back a long way when both of us served 
as judges in San Antonio, Texas. He was a little bit ahead of 
me as a State district court judge, but he went on to serve 
with distinction in the federal judiciary now for almost 35 
years. He has had an incredible career. The first 19 years, he 
served as a federal district judge and then on the Fifth 
Circuit Court of Appeals for 14 more. But he has been a public 
defender, U.S. attorney, a State district court judge, 
assistant district attorney. He has done a lot of different 
things.
    But for some in the audience who may not know the States of 
Louisiana, Mississippi, and Texas, for those States and the 
people who live there, Judge Prado and his colleagues on the 
Fifth Circuit have essentially been the supreme court since, as 
you know, only roughly 80 or so cases make their way to the 
United States Supreme Court.
    In his role for the Fifth Circuit, the judge was confirmed 
by the Senate unanimously, 97 to 0. It is no surprise that he 
was appointed by the Chief Justice of the Supreme Court to 
chair the Criminal Justice Active Review committee and serve on 
the board of the Federal Judicial Center, as well as other 
committees. Judge Prado is just a popular, sharp, and actually, 
once you get to know him, pretty funny guy. But I hope he does 
not show that part of his personality here today. [Laughter.]
    Senator Cornyn. He was first in his family to go to 
college. Judge Prado received his undergraduate law degrees 
from the University of Texas and grew up in a predominantly 
Latino neighborhood in west San Antonio, and he speaks fluent 
Spanish, which will come in handy, of course, in Argentina.
    I was surprised to learn that his family's history extends 
back to a Spanish soldier married at the Alamo in the 1700s.
    So one of the jokes about federal judges is that although 
they get lifetime tenure, sometimes it feels like a life 
sentence. And Ed and Maria are embarking on a new chapter in 
their lives, which I know must be exhilarating for them, and it 
is to our great benefit to have somebody of their distinction 
and their character representing the U.S. Government in 
Argentina.
    Although down in Argentina, he is going to have to remember 
that cowboys are gauchos, but Argentineans may be strangers to 
Bevo but they are no stranger to beef.
    So as the committee knows, Argentina has become an 
increasingly important country in South America. President 
Macri recently implemented a series of positive economic 
reforms that has literally turned that country around and 
eliminated some of the currency controls and reducing taxes on 
agricultural exports. And his broad election victory last fall 
indicates he will continue to enjoy broad support.
    So just as our relationship with Argentina has improved, it 
is really important that we have somebody of the character and 
talents and experience of Judge Prado representing the United 
States Government in that country as we work together to combat 
narcotics trafficking, money laundering, terrorist financing, 
corruption, and other illicit financial activities. We all 
share the concern, which I know the chairman particularly feels 
poignantly, the political concern over Venezuela. And recently 
our two Presidents agreed to launch a bilateral working group 
on cybersecurity issues.
    So the Argentine Republic is fortunate to have such a 
strong believer in democratic principles and the rule of law 
serve as the U.S. Ambassador.
    I thank you for your courtesies and letting me make this 
introduction and thank the President for making such an 
outstanding nomination. And I hope the committee will favorably 
report out his nomination.
    Senator Rubio. Thank you, Senator Cornyn.
    The senior Senator from Florida, Bill Nelson, to introduce 
Ms. Robin Bernstein.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. And I might say also about Mrs. Royce--we 
well know her husband Ed. They have been frequent visitors to 
our State of Florida and have always been such gracious, 
gracious folks to Grace and to me.
    I want to particularly thank the two of you for your 
leadership. You are both very skilled, the chairman and the 
ranking member, in foreign affairs. I had the privilege of 
serving on this committee for a number of years.
    And I thought it important that since I have known Robin 
for a long time, the nominee for the DR, I wanted to come and 
tell you about her that her interest in public service started 
at a very early age. She even campaigned for Scoop Jackson and 
Hubert Humphrey. Now, please, Mr. Chairman, do not hold that 
against her.
    Senator Rubio. That is not in the file. I did not see that. 
[Laughter.]
    Senator Nelson. She even campaigned for me, Mr. Chairman. 
Please, do not hold that against her.
    And she worked for the Joint Economic committee and the 
Department of Commerce. And she has always had that spirit of 
public service.
    And let me tell you what she did in the aftermath of Puerto 
Rico. In a bipartisan way, she put together the Palm Beach 
County Cares organization that within just a few weeks of the 
hurricane in Puerto Rico, they delivered over 100 tons of 
supplies and they also helped to get clean water. And you know 
how desperate those folks are as they continue, many of them 
still without electricity this late in the day and potable 
water. That spirit of service and that proven ability to work 
in a bipartisan manner is going to make her a great ambassador.
    And so I have already congratulated her on the nomination, 
and I would like to see her confirmation fly through the 
Senate. Thank you, Mr. Chairman.
    Senator Rubio. Thank you, Senator Nelson. And I think I 
speak for the ranking member. We thank you for your 
compliments. You are free to come to all of our hearings and 
say that as well. [Laughter.]
    Senator Nelson. I just did that in a press conference with 
you, Mr. Chairman.
    Senator Rubio. Thank you for coming today.
    A member of our committee, Senator Udall of New Mexico, 
will be introducing Ms. Royce.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman. And I 
also just want to say what a pleasure it is working with you, 
Chairman Rubio and Ranking Member Senator Ben Cardin.
    My wife Jill and I have known Marie Royce for close to 20 
years when I began my service in the House of Representatives. 
Marie is a California native. Growing up in the West, she is 
active in conservation organizations and initiatives, and I 
believe she understands the important connection of those 
programs to international security and the rule of law.
    I also think her experience in educational and cultural 
affairs makes her a good fit for this important leadership 
role. Ms. Royce, a business woman and former professor, has 
been the CEO and principal of Marie Royce LLC in Fullerton, 
California since 2016. She has more than 30 years of experience 
in the private sector with Fortune 500 companies and as a small 
business owner creating and launching startups and new 
initiatives and serving as a key business liaison to 80 
countries. As a former educator and full-time university 
professor, Ms. Royce led an international grant program between 
two universities. She is a private sector appointee on the 
Advisory Committee on International Communications and 
Information Policy at the Department of State and has served on 
two U.S. cultural exchange boards. Marie served as an American 
Council of Young Political Leaders delegate to Hungary and 
Poland.
    Ms. Royce earned a bachelor's in science and business 
administration from California State Polytechnic University and 
a master's in business administration from Georgetown 
University.
    Her nomination has significant support within the 
diplomatic community. Patricia de Stacy Harrison served as 
Assistant Secretary for educational and cultural Affairs under 
President George H.W. Bush and Secretary of State Collin Powell 
and currently serves as CEO and President of Public 
Broadcasting. Ms. Harrison says--and I quote here--Marie 
Royce's experience, leadership, knowledge, and commitment to 
service will be of high benefit to our country and the 
Department of State and the Bureau of Educational and Cultural 
Affairs. End quote.
    Likewise, former Assistant Secretary for Educational and 
Cultural Affairs under President Clinton, Ann Stock, says--and 
I quote here--we are thrilled to see Marie Royce nominated for 
a key leadership role at State. She continues to share our 
vision for a more secure and prosperous world through the power 
of international exchange. End quote.
    Ms. Royce's experience, judgment, and temperament qualifies 
her for this important position within our diplomatic corps, 
and I wholeheartedly support her nomination and urge my 
colleagues to do so also.
    Thank you both and really great to be here with you.
    Senator Rubio. Thank you.
    The three ambassadorial nominees, if confirmed, will be the 
face of America to the countries in which you will be serving, 
and your primary job, of course, is to communicate and execute 
the policies of the United States explaining to local 
populations what we are doing and why.
    The western hemisphere is a region vital to our national 
security and to our economy and one increasingly contested by 
foreign powers who have little to no interest in democracy or 
human rights or the rule of law. If we want the United States 
to remain free, prosperous, and secure, it starts in the 
western hemisphere. This is a contest that we cannot afford to 
lose and you will be on the front lines.
    As for the nominee to be Assistant Secretary of State for 
Educational and Cultural Affairs, if confirmed, you will be 
charged with one of America's most important foreign policy 
tools, the finest educational system in the world and a culture 
that is prevalent in nearly every corner of the planet.
    All four of these positions play an important role in U.S. 
foreign policy and I am pleased that all four of these 
nominations are here with us today.
    Let us begin with Colombia where we have a relationship 
that, in my view, is a poster child for what good U.S. foreign 
assistance can do. We have worked for decades now with the 
Colombian Government on a problem of mutual concern, the 
production and trafficking of drugs. The U.S.-Colombia 
initiative, Plan Colombia, is one of the most effective 
bilateral efforts that we have ever undertaken and is a model 
in this western hemisphere. The initiative's main goal was to 
reduce the supply of illegal drugs produced and exported by 
Colombia, but in addition, it helped the security of Colombia 
itself, the stability of its government and its governance. And 
as a result economic relations with Colombia have deepened 
throughout the years, and the U.S. remains Colombia's top 
trading partner. In short, this partnership has allowed the 
Colombian Government to intake billions of dollars in foreign 
assistance and in return has allowed them to invest it in ways 
which have been good for both countries.
    Today Colombia is a free and democratic nation. The rule of 
law is legitimate. It has one of the strongest and largest 
economies in the region, and it is among our strongest allies 
in the hemisphere, no longer just a recipient of support, but 
providing it themselves in places like Honduras.
    Still, it faces challenges, and given the internal and 
regional issues its government is facing, especially with 
narcotrafficking and the FARC, anyone under consideration for 
this position should demonstrate a deep understanding of the 
political, security, and economic climate, as well as the 
opportunities for the United States in partnership with 
Colombia and with the region at large.
    The Assistant Secretary of State for Educational and 
Cultural Affairs oversees some of the U.S. Government's most 
popular and prominent programs like Fulbright Scholars named 
after the longest serving chairman of this committee, William 
Fulbright, and exchange programs that expose people from all 
over the globe to America. These are soft power tools that 
could very well help decide whether this century is also an 
American one.
    The Dominican Republic and the United States have deep 
cultural ties, especially in my home State of Florida. 
According to Pew, Dominicans are the fifth largest Hispanic 
group in the United States with nearly 2 million in the year 
2015. It also happens to be a popular tourist destination for 
Americans, hosting upwards of 2 million Americans as tourists 
last year. Beyond personal and economic ties, the Dominican 
Republic finds itself at an important flashpoint for freedom in 
the region. The Dominican Republic is part of Petrocaribe, a 
group of countries that receive subsidized oil from a 
dictatorship in Venezuela. And if we want Venezuela to return 
to the prosperous constitutional democracy that its people 
deserve and that it was just a few decades ago, it is important 
for other democracies in the region, such as the Dominican 
Republic, to support the democratic aspirations and the human 
rights of their brothers and sisters in Venezuela in forums 
like the OAS and the United Nations.
    Argentina is the leader in South America that is recovering 
from years of poor economic leadership. President Macri's 
election has shown a commitment to stronger bilateral relations 
with the United States and a return to good governance, the 
rule of law, and free markets. The news yesterday of charges 
being brought against the former president Kirchner demonstrate 
just how precarious democracy can be and why we need to be on 
guard for cracks in our own democratic institutions and the 
democratic institutions in the region and throughout the world.
    So all of these positions will hold key roles in American 
foreign policy. And I begin at the outset by thanking you and 
your families for your commitment to your country and your 
willingness to serve it abroad.
    The ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Chairman Rubio, first of all, thank 
you for convening this hearing. I appreciate it very much, and 
it is a pleasure to work with you in regards to the nomination 
for these four individuals.
    I also want to welcome you, thank you for your willingness 
to step forward in public service or continue in public 
service. It is not easy today. These are challenging times, and 
it is a great sacrifice to your privacy and for your families. 
So we thank you and we thank your families for being willing to 
serve our country. And we are pleased that so many of your 
family members could be present with us today as we go through 
this hearing.
    Marie Royce for Assistant Secretary for Educational and 
Cultural Affairs. Marie, you seem to have connections in a lot 
of States. You got a Florida endorsement. You got a New Mexico 
endorsement. You are from California, but you tell me you have 
ties to Maryland. So obviously, you know the country. So 
congratulations on so many different contacts, and you have an 
extremely impressive background, well known for your experience 
in business and your global engagements. So we thank you for 
being willing to take on this extremely important position to 
promote U.S. standing in the world and our democratic 
principles, our cultural ambassador cultivating global 
relationships.
    Let me just underscore the importance of this. When you 
look at the alumni clubs from these programs, you find many 
current and former heads of state. So this truly is America's 
gift to the international community and promoting our values, 
more important now than ever before when you see, for example, 
what is happening in the Philippines with President Duterte's 
use of extrajudicial killings in order to deal with the drug 
problem there and some kind comments sent by our President in 
regards to those methods. Believe me, we have challenges today 
and we need your help.
    I do want just to acknowledge that the administration's 
budget would cut your program by 75 percent. Now, we are not 
going to go along with that, but we need a friend to advocate 
with us so that you have the resources you need to carry out 
this very important assignment.
    And, Mr. Chairman, I might point out I am pleased that we 
have four nominees with us today, but I have to acknowledge 
that there are so many vacancies in the State Department, such 
a drain of the top seasoned diplomats that have not been filled 
that I am extremely concerned about the pace of the Trump 
administration's bringing to us nominees. I can assure you that 
we will work with the chairman and expedite all the nominees 
that are brought forward because we desperately need your 
presence in these areas.
    To Ambassador Macmanus, thank you for your career service. 
You have had an extremely impressive career, including being 
our representative in Vienna to the international 
organizations, including IAEA. That gives you a wealth of 
experience that you can take to Colombia.
    The implementation of the peace accords--Senator Blunt and 
I have worked with the Atlantic Council in regards to the 
implementation of the peace accords. There is a lot of interest 
in Congress, bipartisan interest.
    But one of the real challenges that we need to follow up 
and this committee is very interested in is accountability, to 
make sure there are no impunities as to the violations of human 
rights with the FARC and others that occurred during the 
longest civil war in our hemisphere. So we do want to make sure 
that the peace accords are entered into in the right way and 
that there is accountability for the human rights violations. 
We have to address the illicit coca cultivation. We know that. 
It is a major source of concern to us.
    And as the chairman pointed out with both Colombia and with 
Argentina, the impact of Venezuela is so noticeable, the impact 
on Colombia particularly on people trying to find life that 
cannot exist in Venezuela and the inability to deliver 
effectively humanitarian assistance to the people of Venezuela. 
All that will become part of the charge of our missions in 
Colombia and in Argentina.
    To Judge Prado, we had a chance to talk yesterday. You have 
had a very distinguished career and we thank you for your 
willingness. We do not normally get circuit court judges that 
are on their way to become ambassadors. But your experience is 
incredible and your commitment to public service is one that we 
all admire. So I just really wanted to thank you for being 
willing to take your talent to Argentina. It is our only major 
non-NATO ally in Latin America. This year they will host the G-
20, as we had a chance to talk about.
    And as I explained to you, we need to bring closure to the 
1994 bombing of the Jewish community center in Argentina. The 
cover-up here by the former government is one that cannot go 
unchallenged, and the United States needs to play a role to 
make sure that Argentina brings closure to that issue, holding 
those responsible accountable for that bombing.
    And I am concerned about the increased presence of China in 
Argentina. And it is one which we need to understand as we go 
forward, and our ambassador will play a very, very important 
role there.
    Mrs. Bernstein, you bring very impressive credentials in 
the business community, the philanthropic community. We thank 
you for your willingness to serve in a very important position.
    I will just make one observation, which is not your 
calling. I think President Trump makes it more difficult, and I 
am going to explain why. Many of us are concerned about the 
fact that President Trump never made full disclosures of his 
business interests, et cetera. We know that there are Trump 
organization activities within the Dominican Republic. And we 
just urge you to understand the sensitivity of maintaining the 
objectivity of the mission in the Dominican Republic, and we 
will be depending upon you to maintain that objectivity for the 
American people.
    Mr. Chairman, I look forward to our witnesses' testimony 
and to engaging them in some questions.
    Senator Rubio. Thank you.
    We are going to begin our witness testimony. Your entire 
statement will be entered into the record. So if there is an 
abbreviated version, we are happy to hear anything you have to 
say, but in the interest of time--we have members coming in and 
out, and I know they want to ask questions. And so I would 
encourage you, if you can, to shorten the statements, if 
possible, so we can get right to the questions.
    Ms. Bernstein?

 STATEMENT OF ROBIN S. BERNSTEIN, OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE DOMINICAN REPUBLIC

    Ms. Bernstein. Chairman Rubio, Ranking Member Cardin, 
distinguished members of the committee, I would first like to 
thank my longtime friend and esteemed Senator from Florida, 
Senator Bill Nelson, for his kind introduction.
    It is an honor to be with you today as President Trump's 
nominee to be the U.S. Ambassador to the Dominican Republic. If 
confirmed, it will be an honor to be the second woman to serve 
as U.S. Ambassador to this country. I am humbled that the 
President has entrusted me with this opportunity, with your 
approval, to represent the United States. If confirmed, I look 
forward to working with the White House, Secretary Tillerson, 
and our talented and dedicated staff to lead our engagement 
with such an important regional ally and partner.
    I would like to take this opportunity to thank my family 
who are with me today: my wonderful husband Richard; our 
children, Arthur, his wife Karla, Ariel, Alexandra, and Julia; 
and my mom Karolyn. I would also like to acknowledge my late 
father Archie whose lifelong passion was to host young exchange 
student ambassadors in our home and whose vision enabled me to 
go to high school in France as an exchange student and later to 
the School of International Service in Washington, D.C. My 
family has sustained me throughout the many challenges and 
opportunities in my life and without their support, I would not 
be able to undertake this next and exciting stage of my career.
    I began one of my first professional positions here on the 
Hill at the Joint Economic committee in this very building. 
After obtaining my MBA, I moved to Florida where I met my 
husband and where we raised our family.
    For over 3 decades, I have worked alongside my husband at 
our family insurance business in a number of leadership roles. 
During this time, I continuously worked in the nonprofit 
community in a wide variety of leadership positions, 
particularly in the areas of empowering and supporting women, 
health care issues, and supporting the underserved community. I 
am especially proud that as the cofounder of the bipartisan 
organization, Palm Beach County Cares, I helped facilitate the 
delivery of medicine and critically needed supplies to our 
fellow Americans in Puerto Rico and the U.S. Virgin Islands in 
the aftermath of devastating hurricanes.
    I am confident that my education and my experience in the 
public sector, private sector, and nonprofit worlds have 
prepared me for this important diplomatic mission. If confirmed 
as U.S. Ambassador, I will work closely with the personnel from 
across the Government to lead our embassy's efforts in forging 
stronger bonds with the Government and the people of the 
Dominican Republic.
    If confirmed, this appointment would be especially 
meaningful to me as a Jewish American. My grandfather, Morris 
Stein, fled Russia as a child with his family to escape 
religious discrimination. They came to the United States to 
pursue the American dream of religious freedom, human rights, 
democracy, and economic opportunity. That is why I am humbled 
to stand before you today and, if confirmed, pledge to continue 
the fight to preserve these American values.
    In the Jewish faith, we have a saying, ``When you save a 
life, you save the world.'' During World War II, the Dominican 
Government and its people opened their arms to thousands of 
Jews who were seeking refuge from the atrocities in Europe. 
Serving as Ambassador would be a personally significant way for 
me to show gratitude for how the people of the Dominican 
Republic cared for the Jewish people in their time of need.
    The Dominican Republic and the United States share a long 
history. As close neighbors, we also share a mutually 
beneficial economic, cultural, sports, and people-to-people 
ties enhanced by a very sizable Dominican American diaspora. If 
confirmed, I will work to ensure that trade opportunities 
continue to grow and deliver prosperity for both our nations 
and to ensure that our economic engagement will continue to 
benefit the United States.
    Over the years, the Dominican Republic has endured 
challenges to the health of its civil society. If confirmed, I 
pledge to continue to promote policies that advocate for the 
rule of law, strengthen democratic institutions, and tackle 
corruption.
    Fighting illicit trafficking and transnational crime is one 
of President Trump's highest priorities. The Dominican Republic 
is one of our strongest law enforcement partners in this 
hemisphere. Continued strong bilateral security cooperation 
will help attack the drug-related addiction and crime-related 
problems that affect both our countries.
    Finally, if confirmed, I will work tirelessly to facilitate 
humanitarian, cultural, and educational exchanges that reaffirm 
to the people of the Dominican Republic America's enduring 
foreign policy values of democracy, freedom, and human rights.
    Thank you very much for considering my nomination. I look 
forward to answering your questions.
    [Ms. Bernstein's prepared statement follows:]


                 Prepared Statement of Robin Bernstein

    Chairman Rubio, Ranking Member Cardin, distinguished members of the 
committee, I would first like to thank my long-time friend and esteemed 
Senator from Florida, Senator Bill Nelson for his kind introduction.
    It is an honor to be with you today as President Trump's nominee to 
be the U.S. Ambassador to the Dominican Republic. If confirmed, it will 
be an honor to be the second woman to serve as U.S. Ambassador to this 
country. I am humbled that the President has entrusted me with the 
opportunity--with your approval--to represent the United States. If 
confirmed, I look forward to working with the White House, Secretary 
Tillerson, and our talented and dedicated staff to lead our engagement 
with such an important regional ally and partner.
    I would like to take this opportunity to thank my family who are 
with me today--my wonderful husband Richard, our children Arthur, his 
wife Karla, Ariel, Alexandra and Julia, and my mother Karolyn. I would 
also like to acknowledge my late father, Archie, whose lifelong passion 
was to host young exchange student ``ambassadors'' in our home and 
whose vision enabled me to go to high school in France as an exchange 
student and later to the School of International Service in Washington, 
D.C. My family has sustained me throughout the many challenges and 
opportunities in my life and without their support I would not be able 
to undertake this next and exciting stage of my career.
    I began one of my first professional positions here on the hill at 
the Joint Economic committee, in this very building. After obtaining my 
MBA, I moved to Florida where I met my husband and where we raised our 
family.
    For over three decades, I have worked alongside my husband at our 
family insurance business in a number of leadership roles. During this 
time, I continuously worked in the non-profit community in a wide 
variety of leadership positions, particularly in the areas of 
empowering and supporting women, health care issues and supporting the 
underserved community. I am especially proud that as the co-founder of 
the bipartisan organization Palm Beach County Cares, I helped 
facilitate the delivery of medicine and critically needed supplies to 
our fellow Americans in Puerto Rico and the U.S. Virgin Islands in the 
aftermath of devastating hurricanes.
    I am confident that my education, and my experiences in the public 
sector, private sector, and non-profit worlds have prepared me for this 
important diplomatic mission. If confirmed to serve as U.S. Ambassador, 
I will work closely with the personnel from across the Government to 
lead our embassy's efforts in forging stronger bonds with the 
Government and the people of the Dominican Republic.
    If confirmed, this appointment would be especially meaningful as a 
Jewish American. My grandfather, Morris Stein, fled Russia as a child 
with his family to escape religious discrimination. They came to the 
United States to pursue the American dream of religious freedom, human 
rights, democracy and economic opportunity. That is why I am humbled to 
stand before you today and, if confirmed, pledge to continue the fight 
to preserve these American values.
    In the Jewish faith we have a saying, ``When you save a life, you 
save the world.'' During World War II the Dominican Government and its 
people opened their arms to thousands of Jews who were seeking refuge 
from the atrocities in Europe.
    Serving as Ambassador would be a personally significant way for me 
to show gratitude for how the people of the Dominican Republic cared 
for the Jewish people in their time of need.
    The Dominican Republic and the United States share a long history. 
As close neighbors we also share mutually beneficial economic, 
cultural, sports and people-to-people ties enhanced by a very sizable 
Dominican-American diaspora. If confirmed, I will work to ensure that 
trade opportunities continue to grow and deliver prosperity for both 
our nations and to ensure that our economic engagement will continue to 
benefit the United States.
    Over the years, the Dominican Republic has endured challenges to 
the health of its civil society. If confirmed, I pledge to continue to 
promote policies that advocate for the rule of law, strengthen 
democratic institutions, and tackle corruption.
    Fighting illicit trafficking and transnational crime is one of 
President Trump's highest priorities. The Dominican Republic is one of 
our strongest law enforcement partners in the hemisphere. Continued 
strong bilateral security cooperation will help attack the drug-related 
addiction and crime related problems that affect both of our countries.
    Finally, if confirmed, I will work tirelessly to facilitate 
humanitarian, cultural, and educational exchanges that reaffirm to the 
people of the Dominican Republic, America's enduring foreign policy 
values of democracy, freedom, and human rights.
    Thank you very much for considering my nomination. I look forward 
to answering your questions.


    Senator Rubio. Thank you.
    Ms. Royce?

  STATEMENT OF MARIE ROYCE, OF CALIFORNIA, TO BE AN ASSISTANT 
    SECRETARY OF STATE FOR EDUCATIONAL AND CULTURAL AFFAIRS

    Ms. Royce. Mr. Chairman, Ranking Member Cardin, 
distinguished members of the committee, thank you for inviting 
me here today.
    I would like to thank Senator Udall for his kind 
introduction.
    I want to thank President Trump and Secretary of State Rex 
Tillerson for their confidence in me, and if confirmed, it will 
be a privilege to represent you and the American people 
globally.
    I would like to thank Ed, my husband of 33 years, for his 
love and inspiration. And I would like to recognize my mother, 
Mary Barbara; my father-in-law, Ed Sr.; and my late father, 
Ronald Porter; and Aunt Peg. To my family and friends in 
California and my friends that are here today, I could not ask 
for better support.
    I am a passionate champion of people-to-people exchanges.
    Time and trust in ECA programs like Fulbright and the 
International Visitor Leadership Program have built important 
relationships. One in three current world leaders are alumni of 
U.S. Government exchange programs, so are over 500 former heads 
of state and 84 Nobel laureates.
    As a professor at California State Polytechnic University, 
Pomona, I participated in international exchange efforts 
through educating teachers and students from abroad. I saw the 
impact of our ideals, values, and policies on their world view 
and on their perception of U.S. foreign policy. Because of the 
prevalence of disinformation in many parts of the world, these 
ECA exchanges bring real world experiences in the United States 
that foster credibility and trust. These people-to-people ties 
are an important way to show that U.S. disagreement with a 
given regime overseas are with the Government of the country 
and not with the people. Thus, academic, cultural, and athletic 
exchanges cultivate mutual understanding as well as friendly 
and peaceful relations between the people of the United States 
and the people of other countries.
    In my time as a business executive in the 
telecommunications industry working in emerging markets in 
Africa, Europe, South America, and Asia, I obtained a deep 
appreciation of the role played by our educational programs. So 
often those I met in key decision-making roles had been the 
beneficiaries of ECA's bilateral agreements with foreign 
partners, governments, businesses, and NGOs. They had 
experienced the richness of America's political, economic, and 
cultural life. And as a result, they were very receptive to 
what America had to offer.
    As a delegate to Hungary and Poland in the American Council 
of Young Political Leaders, ACYPL, program, I experienced the 
effectiveness of these bipartisan programs. ACYPL promotes 
mutual understanding and cultivates long-lasting relationships 
among next generation leaders. It was an honor for me to later 
serve as secretary of the board.
    I served as a trustee of Meridian International, which 
works closely with the State Department and other U.S. 
Government agencies to provide exchange and policy programs 
that strengthen U.S. engagement with the world and prepares 
leaders to address complex global problems.
    My professional career began with the Procter & Gamble 
Company in sales management and research and development 
worldwide. At P&G, I helped create and launch a mentoring 
program for women and minorities to help close gender and 
racial gaps in the workplace and attract diverse talent.
    I raise this point because American diversity and the 
advances in opportunity for women and minorities in our society 
serve as an example for those struggling for full rights 
abroad. Prospects for empowerment, democracy, and the rule of 
law worldwide are advanced when young people can participate in 
our public diplomacy programs. Involvement of American and 
international participants from traditionally underrepresented 
groups create opportunities that are open to all. This 
inclusion is an American value and advances American interests. 
From creating programs at Cal Poly Pomona, P&G, and Marriott 
International to creating a program for Muslim women in 
Afghanistan and later Iraq, I have volunteered my time to those 
who have faced discrimination and lacked opportunities.
    As a private sector appointee on the Advisory Committee on 
International Communications and Information Policy at the 
Department of State, I developed long-distance mentoring 
programs.
    As noted by Senator Udall, I have more than 30 years of 
experience in the private sector and small business and as a 
full-time university professor.
    If confirmed, I would aim to strengthen our people-to-
people ties even further. I am very honored to be appointed to 
this important position, and I will focus all my efforts on 
improving the vital missions of these programs.
    Thank you very much.
    [Ms. Royce's prepared statement follows:]


                   Prepared Statement of Marie Royce

    Mr. Chairman, Ranking Member Cardin, distinguished members of the 
committee, thank you for inviting me here today.
    I want to thank President Trump and Secretary of State Rex 
Tillerson for their confidence in me, and if confirmed--it will be a 
privilege to represent you and the American people globally.
    I would like to thank Ed, my husband of 33 years, for his love and 
inspiration. And I would like to recognize my mother Mary Barbara, my 
father-in-law Ed Sr., and my late father Ronald Porter and Aunt Peg. To 
my family and friends in California, I could not ask for better 
support.
    I am a passionate champion of people-to-people exchanges.
    Time and trust in ECA programs like Fulbright, and the 
International Visitor Leadership Program have built important 
relationships.

   One in three current world leaders are alumni of U.S. Government 
        exchange programs.
   So are over 500 former heads of state, and 84 Nobel Laureates.

    As a Professor at California State Polytechnic University, Pomona, 
I participated in international exchange efforts through educating 
teachers and students from abroad. I saw the impact of our ideals, 
values and policies on their world view, and on their perception of 
U.S. foreign policy. Because of the prevalence of disinformation in 
many parts of the world, these ECA exchanges bring real world 
experiences in the U.S. that fosters credibility and trust. These 
people-to-people ties are an important way to show that U.S. 
disagreement with a given regime overseas are with the Government of 
the country, not with the people. Thus academic, cultural and athletic 
exchanges cultivate mutual understanding as well as friendly and 
peaceful relations between the people of the United States and the 
people of other countries.
    In my time as a business executive in telecommunications working in 
emerging markets in Africa, Europe, South America and Asia, I obtained 
a deep appreciation of the role played by our educational programs. So 
often, those I met in key decision-making roles had been the 
beneficiaries of ECA's bilateral agreements with foreign partners, 
governments, businesses and NGOs. They had experienced the richness of 
America's political, economic, and cultural life. As a result, they 
were receptive to what America had to offer.
    As a delegate to Hungary and Poland in the American Council of 
Young Political Leaders (ACYPL) program, I experienced the 
effectiveness of these bi-partisan programs. ACYPL, promotes mutual 
understanding and cultivates long lasting relationships among next 
generation leaders. It was an honor for me to later serve as Secretary 
of the Board.
    I served as a Trustee of Meridian International, which works 
closely with the State Department and other U.S. Government agencies to 
provide exchange and policy programs that strengthen U.S. engagement 
with the world, and prepares leaders to address complex global 
problems.
    My professional career began with Procter & Gamble in sales 
management, and research and development world-wide. At P&G, I helped 
create and launch a mentoring program for women and minorities to help 
close gender and racial gaps in the workplace, and attract diverse 
talent.
    I raise this point because American diversity, and the advances in 
opportunity for women and minorities in our society serve as an example 
for those struggling for full rights abroad. Prospects for empowerment, 
democracy and the rule of law worldwide are advanced when young people 
can participate in our public diplomacy programs. Involvement of 
American and international participants from traditionally 
underrepresented groups create opportunities that are open to all.
    This inclusion is an American value, and advances American 
interests. From creating mentoring programs at Cal Poly Pomona, P&G, 
and Marriott International, to creating a program for Muslim women in 
Afghanistan and later Iraq, I have volunteered my time to those who 
have faced discrimination and lacked opportunities.
    As a private sector appointee on the Advisory Committee on 
International Communications and Information Policy (ACICIP) at the 
Department of State, I developed long-distance mentoring programs 
through video-conferencing and SKYPE for women in the developing world 
to match them up with women professionals.
    I have more than 30 years of experience in the private sector with 
Fortune 500 Companies, and as a small business owner, creating and 
launching start-ups and new initiatives and serving as a key business 
liaison to 80 countries. As a former full-time university professor I 
led an international grant program between two universities.
    If confirmed, I would aim to strengthen our people-to-people ties 
even further. I am honored to be appointed to this important position, 
and I will focus all my efforts on improving the vital mission of these 
programs. Thank you very much, and I look forward to answering your 
questions.


    Senator Rubio. Thank you.
    Ambassador Macmanus?

  STATEMENT OF HON. JOSEPH E. MACMANUS, OF NEW YORK, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
  OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF COLOMBIA

    Ambassador Macmanus.. Thank you, Senator. Mr. Chairman and 
Mr. Ranking Member, members of the committee, it is an honor to 
appear here today as the President's nominee for U.S. 
Ambassador to the Republic of Colombia. If confirmed, I am 
committed to representing the President, the American people, 
and their national interests in a country so key to our 
security and prosperity in the western hemisphere.
    I would like to thank first my wife Carol and our son Chris 
for their support during my 32-year career in the Foreign 
Service. Without that support, I would not be here today.
    Mr. Chairman, Colombia has transformed itself.
    Mr. Chairman, I find myself particularly challenged by the 
fact that your introduction and the ranking member's 
introduction on Colombia were a perfect articulation of our 
policy. It is a representation of the bipartisan nature of that 
support over the past 20 years. And I would be happy to read my 
abbreviated statement, but I would prefer, in fact, to, in the 
Senate tradition, associate myself with those remarks and leave 
myself available for a full set of questions. It is a well 
known account. It is one that we all understand, and I look 
forward to talking to you about it.
    If confirmed, I plan on representing our country fully and 
in a fashion that would continue the progress that we have made 
under Plan Colombia.
    [Ambassador Macmanus's prepared statement follows:]


                Prepared Statement of Joseph E. Macmanus

    Mr. Chairman and distinguished members of the committee, I come 
before you today, both honored and humbled, to be considered to 
represent the United States as the President's nominee for U.S. 
Ambassador to the Republic of Colombia. I feel honored by the prospect 
of serving our country in this role and, if confirmed, I am committed 
to representing the President, the American people, and their national 
interests in a country so key to our security and prosperity in the 
Western Hemisphere.
    I would like to thank my wife and son, for supporting my 32-year 
career in the Foreign Service. Without your continued support I would 
not be here today.
    Mr. Chairman, as the Members of this body know, our relationship 
with Colombia represents for both of our countries the full scope of 
opportunities and challenges that face our hemisphere and the world.
    In spite of a well-known history of violence and instability, 
Colombia has transformed itself over the last two decades into a sturdy 
democracy of growing and maturing institutions with a dynamic market 
economy and a society brimming with optimism and hope for the future. 
Violent capital crime has decreased dramatically and the peace accord 
offers a way forward after one of the world's longest running civil 
wars. Colombia has chosen a new path.
    In these respects, the United States has no more capable and 
disposed partner in the region than Colombia, and Colombia has no more 
reliable and steady partner than the United States. This partnership 
has flourished under Plan Colombia, which has provided a platform for 
our support and cooperation to evolve as Colombia has matured. The 
support of the U.S. Congress remains vital to the health and momentum 
of this relationship.
    At the heart of this cooperation is an urgent bilateral challenge, 
but this should not detract from the many positive aspects and values 
of our relationship. Colombia remains the single largest cultivator of 
coca in the world, the single largest producer of cocaine in the world, 
and the single largest trafficker of cocaine into the United States. By 
U.S. estimates, over 90 percent of cocaine brought to the United States 
originates in Colombia.
    In my brief remarks this afternoon, I want to address the strategic 
purpose of U.S. continued support for Colombia, the means by which we 
can advocate our interests, and address the question of how to cap the 
growth of coca cultivation and return to the progress of previous years 
when there was diminishing production and trafficking of cocaine.
    The United States, including both the administration and the 
Congress, has stated plainly its deep concern about the surge in coca 
cultivation and cocaine production. It is a topic of continuing 
discussion with and within the Colombian Government.
    Our commitment over the past two decades to work side-by-side with 
Colombia to address the issue has produced encouraging results. Over 
this period, with a combination of training, tools, and technical 
skills provided through U.S. assistance, the Colombian security forces 
have made serious and increasingly effective efforts to address 
narcotics trafficking and transnational organized criminals and their 
networks.
    In the past 12 months in bilateral meetings here in Washington and 
in high-level visits to Colombia, President Trump, Vice President 
Pence, Secretary of State Tillerson, and numerous other government 
officials have impressed on the Colombian Government the urgency with 
which they must do more to combat the tremendous growth in coca 
cultivation. The Colombians in turn have developed a wide range of new 
policies and programs to address the issue, and they continue to take 
losses in their security forces on a weekly basis fighting drug 
traffickers and their networks. Colombia is fully engaged in this 
fight.
    Coca cultivation presents challenges to Colombia across every 
aspect of its governance and society. It damages families and 
communities through dangerous arrangements with traffickers, 
transnational criminal organizations, and guerrillas, resulting in 
killings, displacements, and corruption of individuals and government 
officials. It threatens public health and the environment, especially 
in the production phases of cocaine. It subverts licit economic 
development through the illusion of illicit cultivation as a realistic 
plan for subsistence or profit. It creates illegal money flows 
throughout the region, further leading to corruption and stunting the 
ability of the criminal justice system to function untainted with 
devastating effects throughout the illicit supply chain to the United 
States.
    Such a pervasive set of threats requires an integrated, whole-of-
government approach to counternarcotics and rural development in the 
strategic areas of concern. This approach characterizes the 
implementation of the peace accord related to illicit drugs, rural 
reform, and justice for victims.
    The United States is supporting the Colombian Government's efforts 
across Colombia, in Tumaco, in Antioquia, and elsewhere. Working with 
national, state and municipal governments, the private sector, civil 
society, and public forces, the Colombian Government is beginning to 
bring security and economic opportunities to areas of the country 
previously under-served and unsafe. Ending the scourge of narcotics 
trafficking that has destroyed so many Colombian and American families 
is an imperative for our relationship, for Colombia's future, and for 
the success of the peace accord's implementation. In the recently 
concluded U.S.-Colombia High Level Dialogue, Colombia committed to 
reducing Colombia's cocaine production and cultivation to 50 percent of 
current levels by 2023.
    If confirmed, I will be a strong and active supporter of this goal. 
Over the past five years, U.S. efforts in four of the top coca 
producing regions of the country have supported more than 35,000 
families while leveraging more than $265 million in public and private 
resources. In FY 16, USAID programs directly supported over 1,800 small 
businesses and 14,000 small-scale farmers of coffee, cacao, milk, and 
honey through 45 producer associations and groups creating licit 
economies and jobs in the rural sector.
    U.S. efforts to boost licit economic opportunities, develop and 
improve key infrastructure, and confront criminal activities, including 
narcotics production and related criminal activities, marks the next 
chapter in this fight. The United States and Colombia, working side by 
side, can assist communities affected by decades of conflict and 
narcotics trafficking through the implementation of the peace accord.
    But our relationship with Colombia is not just about drugs. 
Colombia is also an important trade partner for the United States, 
underscored by the U.S.-Colombia Trade Promotion Agreement (CTPA) that 
has supported economic growth and employment opportunities in both 
countries. Colombia is America's 25th largest trading partner, with 
two-way trade in 2017 amounting to $26.82 billion. It is notably one of 
the most balanced trading relationships in the world, with only a $282 
million trade deficit for the United States, something I will work on 
if confirmed.
    We support Colombia's accession to the Organization for Economic 
Cooperation and Development (OECD) once it completes all the technical 
requirements for entry. In support of this we are providing Colombia 
with $2 million in assistance to improve labor practices and 
encouraging Colombia to meet its U.S.-Colombia Trade Promotion 
Agreement obligation to protect intellectual property rights, which 
will also deter transnational criminal organizations.
    The United States also wants to see full implementation of new 
regulations to ensure market access for U.S. companies and full 
compliance with the U.S.-Colombia Free Trade Agreement and Labor Action 
Plan.
    The educational ties between our countries also continue to grow. 
With substantial government investment from the United States and 
Colombia, together with private sector collaboration, our joint 
innovation fund has awarded nearly 30 grants in the last three years to 
teams of Colombian and U.S. academic institutions to build 
institutional capacity and create new exchange and training programs.
    We encourage collaboration to support language and teacher training 
that strengthen educational and economic opportunities. Access to 
quality education is key to promoting racial and ethnic equality. 
Empowering persons of African and indigenous descent, women, and other 
underrepresented communities through education strengthens society as a 
whole and promotes economic opportunities for all.
    We have had excellent cooperation with the Government of Colombia 
through the U.S.-Colombia Action Plan on Racial and Ethnic Equality to 
improve access to education, entrepreneurship, and employment 
opportunities for Afro-Colombians and indigenous communities and 
explore ways to promote inclusive policies and programs for both 
countries.
    Exchange programs between the United States and Colombia are 
uniquely able to reach young people and create new economic 
opportunities in both countries and these will continue.
    Finally, Mr. Chairman, I will say a few words about myself. I am a 
senior member of the U.S. Foreign Service, having served over 30 years 
at home and abroad. My experience includes work in Latin America and 
Europe. I served as our ambassador to the International Atomic Energy 
Agency and for many years worked closely as a senior aide to four 
Secretaries of State. I have a detailed knowledge of the importance of 
the Department of State's relationship with Congress and I respect and 
value the views of its Members and the nature of their oversight. I am 
committed to and, if confirmed, will maintain strong ties with the 
Members of this committee, many of whom have deep experience on these 
issues, productive relationships with Colombians in government and 
civil society, visit the country often, and offer measured and wise 
views on the problems Colombia faces.
    Mr. Chairman, we share a common purpose. Colombia continues its 
struggle to create the future it has worked so diligently to achieve 
for nearly two decades. Many of its most serious challenges, especially 
the twin challenges of consolidating peace and controlling drug 
trafficking, are deep seated and frankly the work of a generation. But 
Colombians are committed to picking up the pace. And if confirmed, I am 
committed to continuing the fine work of my predecessors and honoring 
the tremendous sacrifice of Colombians in this shared struggle. If 
confirmed, I will support and defend our policies, our interests, and 
represent the President and the American people as their voice and 
advocate.
    Thank you, Mr. Chairman. I look forward to responding to your 
questions.


    Senator Rubio. Yes. Senator Cardin makes the point that 
anytime your statement--basically as you agree with what we 
have to say, it is always a good sign. But that is just our 
opinion. [Laughter.]
    Ambassador Macmanus.. I got lucky, Senator.
    Senator Rubio. All right. Judge Prado, do you agree with us 
too? [Laughter.]

    STATEMENT OF HON. EDWARD CHARLES PRADO, OF TEXAS, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE ARGENTINE REPUBLIC

    Mr. Prado. 101 percent. I think that Mr. Macmanus should 
have checked with the rest of us on the panel as to whether he 
should have cut his statement short because I think the rest of 
us would have preferred that it be longer. [Laughter.]
    Mr. Prado. Mr. Chairman Rubio, Ranking Member Cardin, and 
other members of the committee, including Senator Kaine who is 
here--and I will acknowledge him--thank you for the opportunity 
to appear before you this afternoon.
    And I also wish to thank my good friend, Senator Cornyn. We 
go back a very, very long way when we were both young lawyers. 
We have an informal agreement that if I do not tell stories on 
him, he will not tell stories on me. So I will leave it at that 
and thank him for being here today and introducing me to the 
committee.
    It is an honor to appear before you today as the 
President's nominee to be the United States Ambassador to the 
Argentine Republic. I must say it is a rather awkward position 
for me because as an appellate judge, I am used to being the 
one behind the bench and asking the questions and controlling 
the little red lights and light traffic. So it is a little 
different situation for me today, but be that as it may, I hope 
to assure you that my career as a judge, my work ethic, my 
resolve make me well qualified to be America's voice in 
Argentina.
    I thank President Trump for his confidence in me and for 
this opportunity. And I thank Secretary Rex Tillerson for 
supporting my nomination.
    I am here today with my wife of 44 years Maria. She has 
been my strongest supporter throughout my life and our marriage 
and in this new endeavor. She understands that there is an 
important role for the spouse of an ambassador and she is eager 
to take on that responsibility. We are a team, and she is 
coming with me as part of my team.
    Our son Edward could not join us today, but he is very 
enthusiastic about this opportunity for his father. And I think 
he would rather save his money for possible trips further south 
than to come up here to D.C. today.
    I would also like to acknowledge some of my former law 
clerks that are in the audience. As a judge for many years, I 
have had the opportunity to hire young, bright lawyers from 
various law schools throughout the country, and they have been 
part of what they call Team Prado. And I wish to thank them for 
appearing here today with me.
    My career has prepared me well for this new responsibility. 
As a federal judge, I listened, I gathered information, I 
analyzed it carefully, and ultimately had the responsibility to 
make difficult decisions. I understood that with the title of 
judge came power and respect. But with that power and with that 
respect also came a responsibility to do what the law demanded 
regardless of the consequences. Likewise, the title of 
ambassador carries with it a great deal of prestige, but with 
that prestige also comes great responsibility to represent the 
United States of America. My goal will be to earn the respect 
that comes with the title of ambassador and to represent our 
country to be best of my ability.
    I also realize that while I might serve as the face of the 
court, there are dozens of persons behind the scenes that make 
the courts function properly. The same is true of an embassy. 
While I might be the face of the embassy, I understand that 
there is a team and many dedicated employees behind the scenes 
making sure that America is properly represented. An embassy is 
only as strong as those who make it function from the 
Ambassador to the consular section to the people working in the 
cafeteria. We are a team working together with the same goals, 
the same mission.
    I have had the opportunity to travel to Argentina on 
numerous occasions. I have made presentations and participated 
in workshops across Argentina and have made friends among the 
Argentine legal community. I know how important the rule of law 
is and how important a strong independent judicial branch can 
be to a country if it is to be a solid democracy. My intent is 
to continue working with the lawyers and the judges of 
Argentina in improving the judicial system and strengthening 
the confidence the people have in the judicial system.
    As a former prosecutor, I appreciate the efforts of our law 
enforcement agencies to make our country and the world a safer 
place for all citizens. It is my intent to fully support United 
States law enforcement agency efforts in supporting Argentine 
law enforcement and their fight against crime. I am committed 
to help build capacity within the Argentine police to promote 
security in a vital regional ally.
    As a son of a World War II veteran and myself a retired 
Army reservist, I appreciate the importance of a strong 
military commitment to a democratic world free from the threat 
of terrorism. Our support of the Argentine military must 
continue.
    I also hope to work closely on commercial and economic 
issues to increase opportunities for United States business in 
Argentina. I will work to further enhance our bilateral trade 
relationship. Argentina is the eighth largest country in the 
world by land area and has a powerful and diverse economy. 
While the country has no doubt dealt with its share of economic 
challenges, the current Macri administration has established 
wide-reaching reforms seeking to strengthen Argentina's markets 
and its position in the global economic community. I intend to 
work closely with the Argentine administration to not only 
assist them in these efforts but to strengthen mutuality 
between beneficial trade and commerce of our two countries.
    I look forward to enhancing our continuing friendship and 
partnership with a close ally. Through our efforts, we can 
strengthen peace and prosperity in both countries, and I look 
forward to representing the United States on the global stage.
    I welcome your questions.
    [Mr. Prado's prepared statement follows:]


              Prepared Statement of Judge Edward C. Prado

    Members of the Senate Foreign Relations committee, It is an honor 
to appear before you today as the President's nominee to be the United 
States Ambassador to the Argentine Republic. I must say it is a rather 
awkward position for me because as an appellate judge I am used to 
being the one behind the bench asking the questions rather answering 
them. Be that as it may, I hope to assure you that my career as a 
judge, my work ethic, and my resolve make me well qualified to be 
America's voice in Argentina. I thank President Trump for his 
confidence in me and for this opportunity. And I thank Secretary Rex 
Tillerson for supporting my nomination.
    I am here today with my wife of 44 years, Maria. She has been my 
strongest supporter throughout my life and in this new endeavor. She 
understands that there is an important role for the spouse of an 
Ambassador and is eager to take on that responsibility. We are a team. 
Our son, Edward could not join us today but is very enthusiastic about 
this opportunity for his father.
    My career has prepared me well for this new responsibility. As a 
federal judge I listened, I gathered information, I analyzed it 
carefully, and ultimately had the responsibility to make difficult 
decisions. I understood that with the title of judge came power and 
respect. But with that power and respect also came a responsibility to 
do what the law demanded regardless of the consequences.Likewise, the 
title of Ambassador carries with it a great deal of prestige, but with 
that prestige also comes a great responsibility to represent the United 
States of America. My goal will be to earn the respect that comes with 
the title of Ambassador and to represent our country to the best of my 
ability.
    I also realize that while I might serve as the face of the court, 
there are dozens of persons behind the scenes that make sure that the 
court functions smoothly. The same is true of an Embassy. While I might 
be the face of the Embassy, I understand that we are a team and many 
dedicated employees are behind the scenes making sure that America is 
properly represented. An embassy is only as strong as those who make it 
function, from the Ambassador to the consular section, to the people 
working in the cafeteria; we are a team working together with the same 
goals, the same mission.
    I have had the opportunity to travel to Argentina on numerous 
occasions. I have made presentations and participated in workshops 
across Argentina and have made friends among the Argentine legal 
community. I know how important the rule of law is and how important a 
strong, independent judicial branch can be to a country if it is to be 
a solid democracy. My intent is to continue working with the lawyers 
and judges of Argentina in improving the judicial system and 
strengthening the confidence the people have in the judicial system.
    As a former prosecutor, I appreciate the efforts of our law 
enforcement agencies to make our country and the world a safer place 
for all citizens. It is my intent to fully support United States law 
enforcement agency efforts in supporting Argentine law enforcement and 
their fight against crime. I am committed to helping build capacity 
within the Argentine police to promote security in a vital regional 
ally.
    As a son of a World War II veteran and myself a retired Army 
reservist, I appreciate the importance of a strong military and our 
commitment to a democratic world free from the threat of terrorism. Our 
support of the Argentine military must continue.
    I also hope to work closely on commercial and economic issues to 
increase opportunities for U.S. business in Argentina. I will work to 
further enhance our bilateral trade relationship. Argentina is the 
eighth largest country in the world by land area, and has a powerful 
and diverse economy. While the country has no doubt dealt with its 
share of economic challenges, the current Macri administration has 
established wide-reaching reforms seeking to strengthen Argentina's 
markets and its position in the global economic community. I intend to 
work closely with the Argentine administration to not only assist them 
in these efforts but to strengthen mutually beneficial trade and 
commerce between our two nations.
    I look forward to enhancing our continuing friendship and 
partnership with a close ally. Through our efforts, we can strengthen 
peace and prosperity in both countries and I look forward to 
representing the United States on the global stage.
    I welcome your questions.


    Senator Rubio. Thank you all for being here.
    I am going to just question one of the nominees and then 
turn it over to our members. And then I will be able to remain 
and continue on our work.
    But I wanted to start with Ambassador Macmanus, who served 
as executive assistant to Secretary Rice and then Secretary 
Clinton in particular during 2012 when we experienced the 
terrible terrorist attack at our diplomatic compound in 
Benghazi. And a number of members not just on the committee but 
off it have raised questions about this period of time, and so 
I wanted to give you an opportunity to address it in this 
committee.
    Let me begin by just asking you, when did you know that the 
attacks were terrorism and not related to anti-American 
protests, and when did you first inform the Secretary of State 
of that fact?
    Ambassador Macmanus.. Senator, thank you. I am going to try 
and answer that in the correct order.
    I first learned of the attack when it was reported from the 
diplomatic security command center to our operations center, 
and they in turn contacted me to let me know that there had 
been an attack or that there was an attack underway.
    To identify when I had knowledge that it was a terrorist 
attack is a different arc. My response initially--and all of my 
communications were internal and intended only to inform people 
as required to understand what the Secretary's whereabouts were 
and what the Secretary was addressing at that particular 
moment. And this was over the course of several hours in the 
afternoon and into the evening. I used the term ``terrorist 
attack'' because that is what I judged it to be. It was not a 
legal determination. It was not based on an a mass of evidence 
or analysis. It was the term that I used to describe what I saw 
taking place.
    Senator Rubio. When did you first inform the Secretary of 
State?
    Ambassador Macmanus.. Well, I would say within minutes. It 
was approximately 3:30, 3:20, if I am not mistaken, in the 
afternoon when I informed the Secretary that this was underway 
and that we were monitoring what exactly was taking place.
    Senator Rubio. One more question and again to give you the 
opportunity to answer. Did you ever purposely mislead or 
advocate for misleading the American public about the nature of 
the attack?
    Ambassador Macmanus.. Never, Senator. Never.
    Senator Rubio. Thank you.
    Senator Cardin?
    Senator Cardin. Judge Prado, you and I had a chance to talk 
about the use of your talents in the legal system to deal with 
the problem in Argentina from the 1994 bombing of the Jewish 
community center. I just really want to get on the record here 
our concern that that matter be of high priority to our 
mission, that there be justice in regards to what happened and 
any cover-up that was engaged by the Government.
    Mr. Prado. Yes, sir, Senator. I am encouraged that the 
present administration has refocused its investigation on those 
horrible terrorist attacks. We share, unfortunately, that with 
Argentina that our country too has been attacked by terrorist, 
and many people were killed and injured. The administration is 
going forward with investigations not only about the bombings 
that took place but also the killing, murdering, death of 
Alberto Nisman, who was a special prosecutor that was 
investigating the case, and that mysterious death. And I hope 
to get down there and help the process in any way I can with 
regard to any assistance that we might provide whether it be as 
prosecutors or assistance to the judicial process.
    Senator Cardin. Thank you for that. There is at least some 
indication that there were foreign interests involved in that 
attack and that there may have been governmental cover-up as to 
the investigation. So that, obviously, is a matter of grave 
concern.
    Mr. Prado. Yes. I would like to encourage the Iranian 
Government to cooperate in the investigation and assist in the 
investigation.
    Senator Cardin. Thank you.
    Ms. Bernstein, I am sure you are aware of the 2013 decision 
of the Dominican Constitutional Court that stripped hundreds of 
thousands of Dominicans of Haitian descent of their nationality 
rending them stateless. These are people who for a long time 
have lived in the DR, and the Constitutional Court has now 
declared that they have no citizenship, that they are literally 
stateless.
    What would be your approach to ensuring that these 
individuals have their nationality restored?
    Ms. Bernstein. Thank you, Senator, for that very important 
question.
    Humanitarian rights are very, very important to me, 
especially as someone whose family fled Russia because of the 
lack of respect for human rights. So this is something that is 
deeply engrained in my soul. And this is a question that is 
very, very important to me.
    First of all, I agree with you that human rights should be 
respected. Even Pope John Paul said that everyone--if I may 
quote--everyone should have the opportunity to eat enough, to 
be cared for when ill, to find housing, to study to overcome 
illiteracy, to find worthwhile and properly paid work, all that 
provides a truly human life for men and women young and old.
    And I would take a very active role in working with our 
embassy staff. I understand that this is something that we do, 
if confirmed, that we work to help them gain passports. And I 
would, hopefully, work with my esteemed colleague, Ambassador 
Michele Sison, in Haiti and try and work with her should there 
be any issues where we could partner together and try to make 
sure that the restoration of the people that are, quote, 
stateless----
    Senator Cardin. And I would ask that you keep this 
committee informed on that process. These individuals basically 
have been there for long periods of time. There is no other 
country that they belong, but because their language is 
slightly different, they have been discriminated against by DR. 
And we would just ask that you make this a priority to keep us 
engaged on this subject.
    Ms. Bernstein. Absolutely, and if confirmed, I can assure 
you that I look forward to working with you to assure that this 
will happen. And I look forward to staying engaged with you on 
this issue.
    Senator Cardin. Ms. Royce, I really appreciated your 
testimony. It was almost as good as Ambassador Macmanus' 
testimony. [Laughter.]
    Senator Cardin. I really appreciated the way you talked 
about the exchanges and American values and the impact it has 
had because I agree with everything you just said. And human 
rights is a priority of this committee. It is one of my top 
priorities. American values to me are our strength. And we have 
got to be pretty clear about it. It is being challenged today. 
It is not easy. There are a lot of concerns about whether 
America still maintains that global position as it relates to 
our traditional values. And I just want you to know that there 
is a lot of support by both Democrats and Republicans in 
Congress to make sure that your role is clear that America's 
strength are our values and that we want you to have the tools 
you need to continue these exchanges to promote I would say 
universal values, American values, as you move forward where 
there are going to be challenges because of the current issues 
that are before America and before the global community.
    So will you be open and frank with us as to how we can 
help?
    Ms. Royce. Thank you, Senator. First of all, I want to say 
thank you for your thoughtful comment and your willingness to 
help.
    What I would like to share that you stated was how 
important exchange programs are as far as that valued aspect of 
America's international leadership. As you know and you 
mentioned in your statement about resources, and I want to 
assure you that, if confirmed, that any level of resources--I 
am going to utilize my skills coming from the private sector 
where I managed with challenging budgets oftentimes. And I am 
going to leverage the assets of the ECA, and that includes the 
experts at the State Department, our resources, and you 
mentioned the alumni. That is really important.
    In addition to that, I am going to marshal the resources 
against our highest public policy priorities for foreign 
policy.
    So I will just say that I am going to welcome your feedback 
and be open to it. Anyway that we can make any improvements to 
enhance and improve our public policy--I would welcome that.
    Senator Cardin. Thank you.
    With your indulgence, Mr. Chairman, I just want to ask 
Ambassador Macmanus in regards to the peace process in Colombia 
and the reconciliation that is critically important, that the 
terms of the peace agreements as it relates to those that have 
violated human rights, that they are held accountable are 
consistent with the peace agreements. There are 
responsibilities on both sides. And what I find, that when 
peace agreements are entered into, the human rights component 
sometimes gets left on the table as far as enforcement is 
concerned because it is not considered to be of equal priority 
to the other provisions in the peace accord. I would ask that 
that needs to be of highest priority, and the U.S. mission can 
play a major role to make sure that in fact is carried out.
    Ambassador Macmanus.. Senator, I would comment briefly on 
that.
    First, I think that the peace accords themselves have woven 
into them an understanding that the repair that needs to be 
done to the social fabric in that country is part and parcel of 
both the scourge of illegal narcotics and the response to that 
scourge in the peace accord and following, which is the 
introduction of state presence, of state institutions in areas 
that have traditionally not seen investment and participation 
by the state, one, for security reasons initially but, 
secondly, because they are areas that are in need of growth and 
many of them, in fact, line up with areas of the country where 
indigenous populations or Afro-Colombian populations are 
prevalent.
    So the key word, as you said, is ``accountability,'' 
accountability for crimes and then an accountability to resolve 
part of the underlying causes for the state being in the woeful 
condition it was in when we first went forward with Plan 
Colombia. Human rights must be a part of that. And we have seen 
reactions from the Colombian Government in terms of providing 
greater protection to labor leaders and human rights defenders. 
It is still a problem, and it is going to be over the course of 
the generation that makes changes in Colombia that will build 
out, I think, the institutions of Colombian governance that 
will provide the most important protections.
    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of you. This is a very well 
qualified panel for the positions that you have been nominated 
for. I appreciate your willingness to serve.
    If I could ask you, Mr. Macmanus, quickly. We were talking 
in the back room and I was saying similar things. A lot of 
times we wonder whether the effect of American foreign policy 
is positive. We try hard. We have good motivations. We invest a 
lot. Often, despite all of those things, we get involved in 
other countries and we are not happy with the outcomes, and 
then that makes people question whether we should make the 
effort at all.
    But Colombia is a perfect example of a careful and adroit 
and sustained investment between administrations and Congresses 
of both parties that has really been transformative. We have 
seen Colombia go from kind of a near failed state to a 
wonderful economic and security partner for the United States, 
a leader in its region. I remember going to visit the 
multinational force of observers that patrols and provides 
peace in the Sinai on the border between Egypt and Israel. And 
Colombia is a major participant in that peacekeeping operation, 
as they are in others. And so there is a lot at stake at this 
point in making sure that progress continues.
    One of the issues I know that Colombia is very interested 
in--and I wanted to get your take on it--is Colombia's desire 
to be part of the OECD. So I would like to hear your thought 
about whether Colombia seems to be on track to meet benchmarks 
for ascension to the OECD and what are the obstacles that 
remain and then what more could the United States do to be an 
ally in that effort.
    Ambassador Macmanus.. Thank you, Senator.
    Colombia's desire and, in fact, ambition to become part of 
OECD, to join in a community of nations that believe in 
normative standards and are willing to prove that they are 
capable of it is a great sign that they are prepared to move 
forward.
    Our trade relationship with them now has as its framework a 
trade cooperation agreement, which has resulted in a fairly 
good trade balance. It is one of the best in the world, a trade 
in goods of about $23 billion a year. It varies depending upon 
a number of factors. But also both the trade agreement and the 
desire to join OECD has provided an impetus for a continuation 
in progress on standards, on labor standards, on resolving 
conflicts that exist that have to do with protection of 
intellectual property, the access to the market of U.S. 
companies.
    U.S. companies have expressed--continue to--a great desire 
to invest in Colombia. Colombia is a country of 48 million 
people. It has a prominent role in the region and has ready 
access to other markets. It is really at a point where it 
should be developing in a very expansive way in terms of a 
larger global footprint.
    There are issues that have yet to be resolved. There is 
every hope that they can be resolved in short order. But it is 
under a concentrated review by the U.S. Trade Representative, 
by the Labor Department, and by the Department of Commerce. I 
have spoken with both Commerce and Labor about these issues. 
This is a serious and ongoing conversation. It will continue to 
be so because there are elements of the Colombian economy that 
continue to involve directly issues such as child labor, and I 
do not mean child labor as in cutting the lawn on the weekend, 
really the misuse of children in a labor market.
    So those are, again, longer-term shifts that have to take 
place. I think we are very positive in terms of the movement 
and hopeful that that can reach a good conclusion.
    Senator Kaine. I would encourage you in that way. I think 
this has a lot of benefit for Colombia if it is done, but I 
also think it has benefit for the OECD. An organization like 
the OECD can easily kind of be viewed as a northern hemisphere 
thing, and I think it is really important that southern 
countries around the world also find their own places in 
organizations like this. So I would encourage you in that way.
    Ambassador Macmanus.. Thank you.
    Senator Kaine. Ms. Royce, let me just put a pet issue of 
mine on the table for your new job, and that is in the area of 
education exchange. Of course, we have a crown jewel education 
system, Fulbright scholarships and other things. I so often 
worry, though, when we talk about education, we always dis 
career and technical education. And I think there is an 
excellent opportunity for exchanges in this space. If you 
qualify for a Pell Grant in this country, you can use it on a 
college campus but you cannot use it at an apprenticeship 
program or a career and technical program not on a college 
campus. If you are in the military like my son, you get a 
tuition assistance benefit. You can use it at a college campus. 
You cannot use it to take a welding certification exam if you 
are an ordnance officer. We have a presidential scholars 
program for 50 years that recognizes high school students who 
are super stars. Only recently Senator Portman and I convinced 
President Obama to start recognizing career and technical 
education super stars too. You can pretty much look across the 
spectrum of U.S. education policy, and we say college is great 
and we have kind of underestimated career and technical 
education and apprenticeships.
    There are some superb apprenticeship programs around the 
world, Switzerland, Germany. The United States has some 
wonderful examples, Newport News shipbuilding apprenticeship 
program in Virginia.
    But I would just hope as you are thinking about educational 
exchanges how to both share our best practices and learn from 
the best practices of others, that it would not just be about 
college or elementary and secondary, but we would make sure 
that we include career, technical, and apprenticeship programs 
as part of what we both want to learn about and spotlight that 
we do well.
    Ms. Royce. Thank you, Senator Kaine, for that input.
    I would also add that I would be very open to looking at 
those types of programs. And as you are very well aware, many 
programs have been conducted working back and forth with 
Congress. A couple of those include the Kennedy-Lugar program 
for high school students. Another one you probably are aware of 
is the Ben Gilman program, and under Ben Gilman it provided an 
opportunity for people that were first generation students and 
their families to go to college. It helps with financial need. 
Of course, again, that was in direct consultation with 
Congress.
    So I would just add that I think these types of ideas are 
great to think about and include. So I appreciate your input 
and would look forward to, if I am confirmed, working with you 
on this.
    Senator Kaine. That is very good. Thank you so much.
    And I have another question or two that I will just submit 
for the written record.
    Senator Rubio. Thank you.
    Ambassador Macmanus, I wanted to ask you about cocaine 
because from 2006 to 2010, according to the RAND study, there 
was a 50 percent drop-off in consumption of cocaine in the 
United States, and then it began to climb to the point where we 
have seen record supplies of cocaine over the last couple 
years, obviously, much if not most of it from Colombia. And the 
increase, of course, has led to a drop in prices and an 
increase in the rate of consumption in both the United States 
and in parts of Europe.
    The timing of that climb, of course, coincided with the 
peace deal. They stopped aerial eradication, but the other 
thing that happened is they created this sort of program where 
they were paying growers to stop growing coca but to be in a 
position to qualify for it, for those payments, the farmers had 
to be growing coca. So people started growing it so they would 
qualify for the payments when they became available.
    The point is we now have seen historic numbers of cocaine, 
and we know it is destined to come here. Already cocaine kills 
more people than heroin does among African Americans in the 
United States. So it is a burgeoning problem.
    It is my belief that, if confirmed, you will be the 
Ambassador to Colombia at a time in which cocaine is going to 
begin to compete with heroin and opiates as a headline issue in 
the United States and immediately people are going to realize 
where it is coming from and there is going to be real tension 
created as a result of it.
    Give us some ideas about how you plan to get ahead of that 
both in your interactions with the Colombian Government and the 
United States Government because I see that coming, and I see 
it potentially becoming a major irritant in the relationship 
between our countries. And, quite frankly, I could foresee 
people begin to question--not me, but others begin to question 
the wisdom of a plan that is supposed to be dealing with this, 
and yet they will be saying we are spending all this money and 
it is not working. So how do you plan to get out ahead of it 
both working with our counterparts in Colombia and, of course, 
the folks at the State Department and here in the U.S. 
Government?
    Ambassador Macmanus.. Thank you, Senator.
    I think that irritation is already there. It is beyond an 
irritation. The President in last year's declaration on a list 
of major drug producing and drug trafficking nations expressed 
a deep concern about the increase in coca cultivation and 
cocaine production in Colombia. The Colombians have felt the 
same way. Members of this committee have expressed themselves 
of this view. And the Colombian Government itself has also 
expressed the concern that they need to have on this issue.
    The most recent experience on interdiction has been a 
positive one. In 2017, 500 metric tons of cocaine hydrochloride 
were interdicted--and cocaine paste. As well, the highest 
number of hectares of coca cultivation were eradicated, most of 
that with forced eradication, some of it, a much smaller 
number, with voluntary eradication.
    The Colombian approach, which is a new strategy--and while 
it is tied to and is part of addressing cocaine that was built 
into the peace accords, both rural reform and addressing 
illicit drugs were elements of the peace accord. They place 
responsibilities well within the grasp of the Colombian 
Government to begin to address these in a coordinated way. So 
they have been using and beginning to use a whole-of-government 
approach.
    Now, the growth is due to a number of factors. You 
mentioned the payments that would be made to farmers who were 
cultivating. We saw that growth beginning earlier, in fact 
before the end of aerial spraying. Some of that we take to be 
encouragement by the FARC. Some of it was in anticipation of 
negotiation, we think, for the peace accords, and some of it 
was clearly related to the opportunity to turn in hectares of 
coca cultivation for a cash payment. All of those have a 
predictable quality to them.
    What is absolutely necessary is the commitment of the 
Colombian Government to reduce these numbers. Most recently we 
had a high-level dialogue with Colombia earlier this month, and 
the Colombians have committed themselves to an eradication 
within 5 years to a level of 50 percent current numbers. Now, 
we believe that there is both the focus, the appropriate tools, 
the professionalized military that was one of the outcomes of 
Plan Colombia that lead to the ability of Colombia to do that.
    I recognize that there is a chain of suffering that starts 
in Colombia and gets to the United States, and every country 
that is affected along the way and certainly Americans who are 
affected by the introduction of illicit narcotics in the United 
States are part of that and feel that suffering. We know we 
have a responsibility at this end, and we have spoken about it 
in terms of demand reduction. Unfortunately, demand also 
appears to be rising. Some of those indicators like the number 
of first-time users continues to push up. These are all issues 
that are going to have to be dealt with in a coordinated 
fashion at our end, and we understand what the coordination 
needs to be at that end.
    Senator Rubio. And it is impossible to talk about cocaine 
and its distribution without mentioning--let me begin by saying 
that even as some elements of the FARC may have disbanded and 
disarmed and decommissioned, the space they once occupied in 
many parts of Colombia have been taken up by cartel and/or ELN 
elements. And you are someone that is very familiar with the 
region and obviously, as a career service at the highest levels 
of the State Department, are aware of this. It is 
indisputable--right--that the distribution of cocaine is 
assisted actively by elements in the Venezuelan Government that 
participate both in its distribution and, as we have seen with 
kingpin designations and sanctions and indictments in the 
United States against some of these elements, and our own 
counterparts in Colombia point to this that the Venezuelan 
Government is supportive of the ELN, has often hosted its 
officials on that side of the territory. But without doubt, as 
you see the aerial routes that are distributing through the 
Caribbean, they almost all proceed from Venezuelan territory of 
Colombian cocaine. And therefore, as we look at the surge, it 
is fair to say that elements within the Venezuelan Government 
and/or military are active participants in the distribution of 
these cocaine routes.
    Ambassador Macmanus.. Senator, it would test credulity to 
believe that the ELN, which has traditionally operated along 
the Venezuelan border and has also acquired greater license in 
areas that had previously been controlled by the FARC, that 
that border somehow becomes an impossible barrier for them. The 
border between Colombia and Venezuela is ripe for mischief and 
for illegality. The ELN has an interest in creating 
opportunities for generating illegal funds. So I would have to 
say that only somebody who was waiting for the final analysis 
to make that conclusion would disagree with your statement. I 
do not.
    Senator Rubio. It is also fair to say that if you look at 
the challenges facing Colombia, whether it is assistance to the 
ELN, whether it is a massive migratory issue now with refugees 
fleeing Venezuela, whether it is the distribution of cocaine, 
including by elements within the Government, the nephews of the 
dictator in Venezuela--they have been convicted--Venezuela 
poses a very significant national security threat to our 
strongest ally in South America in Colombia.
    Ambassador Macmanus.. That is correct, Senator.
    The Summit of the Americas this year in April has as its 
main theme democratic governance against corruption. You put a 
colon after that and then say the problem of Venezuela. 
Clearly, Venezuela as a regional threat, as a threat to 
Colombia is the principal problem of today of right now. There 
are solutions and steps that can be taken and that we have 
called for, that the United States Government has called for 
that are simple steps of return to democracy, return to a 
respect for human rights, allow free and fair and transparent 
elections to go forward with international observers, open a 
humanitarian corridor for food and medicine. Many of the 
Venezuelans who are crossing the border are seeking medical 
attention, are seeking simple vaccinations. Children are dying, 
babies are dying as a result of that inability to secure basic 
care.
    Senator Rubio. One last question in that regard, and that 
is, as you see more and more people coming across the border--
by the way, some are citizens of both Venezuela and Colombia.
    Ambassador Macmanus.. Yes.
    Senator Rubio. But as they come across the border and more 
strain is placed upon our allies, do you anticipate at some 
point, if not already, that the United States will need to step 
up and potentially provide Colombia with assistance, along with 
the international community, to deal with the pressures being 
created by these large number of refugees flowing into Colombia 
from Venezuela?
    Ambassador Macmanus.. I do, Senator. I have had 
conversations with USAID and with other elements in the State 
Department that would be directly involved in that kind of 
assistance. I think Colombia understands deeply the depth of 
this particular problem and this crisis and are prepared to 
seek support when it is needed in order to help alleviate the 
enormous stress that it is going to place both on the 
individuals, the Venezuelans themselves who have been 
displaced, but also on the systems in Colombia that are going 
to need to be able to respond to it.
    Senator Rubio. Thank you.
    Ms. Bernstein, I wanted to ask you, I guess it is, one 
question with two parts about the Dominican Republic. One of 
the things that is concerning to us is while we are allies of 
the Dominican Republic and work with them and have strong 
cultural and economic ties, in settings like the United 
Nations, their votes are very often not aligned with our 
priorities. As an example, it is my view and I think the view 
of most of the Members of the Senate--in fact, I know it is 
because 100 Members of the Senate addressed the letter that I 
led with Senator Coons to the United Nations Secretary-General 
to express our deep concern about the unfair treatment of 
Israel at the United Nations. It is an entity and a body that 
frequently is home to anti-Israel resolutions that in many 
cases attempts to de-legitimize Israel.
    For example, in 2016 at its 71st session, the U.N. General 
Assembly adopted 18 resolutions directed at Israel, resolutions 
on which the United States voted no. The Dominican Republic 
voted for each of these 18 resolutions.
    We have also seen them at the OAS be less than cooperative 
on efforts to pressure the Venezuelan Government, in essence, 
efforts to allow the OAS to function the way it is supposed to, 
and that is to be an organization of democracies in the region 
that protect democracy and that condemn nations that are 
violating it. And obviously, one of the reasons potentially why 
this is happening is their membership in Petrocaribe, which is 
a group of countries that receive subsidized oil from Venezuela 
in exchange for Venezuelan influence in their government.
    I would just ask, do you commit to this committee that this 
is an issue that you are going to begin a dialogue with the 
highest levels of the Government of the Dominican Republic, 
both on their anti-Israel votes at the United Nations and also 
at their consistently not wanting to vote in favor of 
supporting democracy in the region? Will you commit to this 
committee that that will be among the issues that you will 
raise, if so directed by the Department of State, at the 
highest levels of the Dominican Republic Government?
    Ms. Bernstein. Yes, absolutely, Senator. I look forward to 
working with you in concert on this, if confirmed.
    Senator Rubio. Thank you.
    Judge Prado, this has already been asked, and I just want 
to reiterate. I think that Argentina has a lot of positive 
things happening. They are a member of the Lima Group, as an 
example, a group of nations that have taken it upon themselves 
to combine and coordinate efforts to pressure Venezuela's 
dictatorship and to push forward. And I would just ask, do you 
commit to doing all you can in your role to coordinate with 
your U.S. counterparts and the other member countries and to 
continuing support of the Argentine Government's commitment to 
this process?
    Mr. Prado. Yes, Senator, I do. President Macri has been a 
longtime critique of Venezuela's Government and the treatment 
of the citizens of Venezuela by the Maduro administration. He 
took efforts to have Venezuela taken out of the MERCOSUR, which 
is a common market group of South American countries. So I 
think there are some positive moves being made by the Argentine 
Government in its criticism of how the Venezuelan 
administration is treating its citizens and the lack of 
democracy. And I intend to do all I can to support their 
efforts to remedy the situation.
    Senator Rubio. And as I have mentioned in the opening 
statement just yesterday, the Argentine judiciary referred for 
public trial former President Cristina Kirchner and other 
senior officials in connection with the cover-up of the 1994 
bombing of a Jewish community center in Buenos Aires by the 
Iranian Government. They are accused of abuse of power and 
obstruction of justice in trying to avoid holding Iran 
responsible for the terror attack which, by the way, killed 85 
people.
    And I would just ask if you could commit to the committee, 
if confirmed, that you will not only do all you can to support 
their government in the search for justice for those who died 
in that attack but also that you will support and do all you 
can on behalf of the U.S. Government to support them in any 
ongoing investigations into what I believe was the murder and 
the assassination of a prosecutor, Alberto Nisman, who was on 
to the truth when his life was taken.
    Mr. Prado. Yes, Senator. I appreciate that question and I 
will do all I can to support the Macri administration in its 
investigation of this very serious, tragic situation that has 
occurred in their country.
    Senator Rubio. And finally, Ms. Royce, Florida, my home 
State, has benefited from educational and cultural exchanges in 
numerous ways, including a large impact on our economy. There 
was an article in the ``Washington Post'' in November of last 
year that basically outlined that there has been a sharp change 
in foreign student enrollment in the U.S. with numbers 
declining in both 2016 and in 2017 of international students 
coming to the United States.
    I guess my question is, if confirmed, what ideas do you 
have about increasing participation of educational and cultural 
exchanges both here and abroad?
    Ms. Royce. Thank you, Senator, for your question.
    The information that I have received is that we have had 1 
million international visitors this past year and the year 
before. So, of course, I would like to continue that.
    I would like to also add that in that number, we even have 
14,000--you are talking about international students?
    Senator Rubio. I think it is a combination of students and 
cultural exchange.
    Ms. Royce. Okay. I am sorry. Maybe you can repeat the 
question.
    Senator Rubio. The question is what can we do to continue 
to ensure--part of what is happening is in some countries 
around the world, they now have options available that they 
could only have gotten in the United States in years past. That 
is a part of development. But there might be some other factors 
at play that might be discouraging the growth in study abroad 
in the United States and/or in participating in exchanges 
between students who are coming here, whether it is rhetoric 
and our politics or perhaps the unavailability of some of these 
programs.
    But one of the things that we notice in our work--and I 
think the ranking member would agree--is oftentimes when you 
meet with important foreign leaders, one of the things you will 
notice in their biography is that they graduated from an 
American university, and it actually has a real impact in our 
ability to engage with them because they are familiar with our 
system of government, they are familiar with the United States. 
It is a real advantage to this country.
    What ideas do you have to ensure that we continue on that 
trend as we may face new global competitors for that and/or 
perhaps options domestically that may no longer make our 
universities or our cultural exchanges as attractive as they 
may have been?
    Ms. Royce. Thank you very much for the question, Senator.
    You mentioned about the interlocutors of top world leaders, 
and I mentioned that in my opening statement, that one in three 
world leaders today are actually people that have experienced 
the United States firsthand through the international ECA 
programs that we have had.
    I would also add that we have been doing some exciting 
things by trying to promote English, and we have English 
centers around the world where we offer young people the 
opportunity to learn English and they can do that online. And 
so consequently, that also gives them an exposure.
    Another thing that is exciting about ECA right now is we 
have got some digital diplomacy initiatives. Even our Facebook 
page--we have seven different Facebook pages, and we have got 
the third largest hits on one of the Facebook pages. And we 
have got a Twitter feed. We have got digital initiatives where 
people can actually go online and have a mentor.
    I will just add one type of program. It is the Christopher 
Stevens initiative, which is actually all virtual. Excuse me. 
After our former Ambassador. And so consequently, we are 
engaging with people that normally would never have the 
opportunity to interface with an American. And so I think that 
is another example where we are able to create some hybrid 
programs to expose people to also increase our numbers.
    But what I have understood from the information I have 
received is that we have had a number of people that are still 
continuing to come to the United States from the international 
visitor program, and there is a strong economic impact. I am 
sure you know the numbers. Those students have created 450,000 
jobs here in the United States, $39 billion worth of impact 
financially.
    Again, I will continue to try to do everything I can, if 
confirmed, to try to continue to promote ways for people to be 
interested in coming to the United States, again because these 
leaders are so important.
    And also I would just add on a short-term basis, having 
these leaders here gives us an opportunity to talk about things 
that are very important, countering terrorism and managing the 
refugee crisis, for example, or even responding to disaster 
relief because these people are already here. So if that is a 
leader or an exchange student--and if it is a student, of 
course, they are getting exposed to American values. We 
mentioned human rights, democracy, rule of law. Free speech is 
another one. We are talking about countering aggressive 
regimes, getting the opportunity to be able to speak and gather 
freely, and I know, Senator, also on technology, even open and 
free data flows and cross-border communications. I think that 
is really important.
    Thank you.
    Senator Cardin. If I could ask Ms. Royce on the summer 
work-travel programs, J-1 visas. 17 Senators sent a letter to 
Secretary Tillerson last summer in regards to the importance of 
the continuation of that program. It has been under concern.
    I could just give you one example. I had talked with the 
Jewish camp organizers and the use of the J-1 visa for 
counselors at the camp for cultural opportunities for the 
campers there. It is an incredible program.
    We are concerned in this immigration debate that this 
program remain as a high priority. What is your view on this 
program?
    Ms. Royce. Thank you, Senator Cardin, for your question.
    I wanted to share with you that I am familiar with the 
letter, and I also was impressed with the fact that each of you 
that signed on really talked about the importance of the summer 
work-travel program to the local community. In addition, you 
recognized something that is very important in that letter, 
which was the fact that Americans should also have the 
opportunity to be able to go for these jobs. And in fact, it 
was recognized then that these jobs should also be promoted 
broadly to Americans. But, of course, there is always the need 
for talent in high demand season.
    One of the things about this area is that they are closely 
monitored and site visits are conducted, and they are always 
updating the regulations. And I want to let you know that I 
would continue with those practices in a transparent way and 
would want to work with you on those. And I understand the 
summer work-travel program has really strong bipartisan 
support. And obviously, just even speaking on the Hill here on 
my visits, I just know how important that is, and I would be 
interested in continuing this dialogue.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    All right. Well, thank you for your service, your 
willingness to serve. We look forward to the chairman moving 
this on to the confirmation vote.
    The record on this hearing is going to remain open until 
the close of business this Friday.
    And seeing no objection, the hearing is adjourned.

         [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to
             Robin Bernstein by Senator Benjamin L. Cardin

Trump Organization Conflicts
    The Trump Organization, which the President continues to own and 
benefit financially from, has a real estate venture in the Dominican 
Republic. After being dormant for many years, the Trump Organization 
appeared to revive its interest in the project last year, saying that 
the development could include many phases. Among other things, it will 
require permit approvals from the local government. According to 
reports, local government officials refer to it as ``the Trump 
project,'' and believe that a proposal to roll back environmental 
regulations for the project could ``help Trump.'' I know that you have 
stressed the importance of maintaining high ethical standards, and I 
hope you would agree with me that it is important to avoid any action 
that would create or appear to create a situation where U.S. Government 
resources are used to benefit the personal financial interests of U.S. 
Government officials, including the President.

    Question 1. If confirmed, do you commit that under your leadership, 
the U.S. Embassy will not participate in any matters related to the 
Trump Organization's interests in the Dominican Republic, including 
meeting with any members of the Trump Organization and Trump family 
members?

    Answer. As a Chief of Mission, commercial advocacy is one of the 
most important parts of the job. While remaining vigilant about 
avoiding any appearance of impropriety, it is important for embassy 
teams to engage in U.S. export promotion, assist U.S. companies in 
understanding the Dominican investment climate, and engage in economic 
and commercial diplomacy to promote fair and transparent business and 
trade policies that ensure a level playing field for U.S. businesses in 
the Dominican Republic.
    If confirmed to be Ambassador to the Dominican Republic, I will 
always act in the best interest of the United States Government and the 
American people. I will never place the interests of any individual or 
company ahead of those of the American people. I will make clear that 
this is my expectation for all Embassy staff.

    Question 2. Do you commit to refrain from weighing in with any 
Dominican Republic Government officials or any members of the private 
sector regarding any Trump Organization interests in the Dominican 
Republic?

    Answer. If confirmed as Ambassador to the Dominican Republic, I 
will engage with the Department's ethics lawyers on any matters 
relating to the Trump Organization and engagements with Trump family 
members engaged in the Organization's business activities in the 
Dominican Republic. I will always act in the best interest of the 
United States Government and the American people. I will never place 
the interests of any individual or company ahead of those of the 
American people, at the same time by law the U.S. embassy must not 
disadavantage the Trump Organization vis a vis other U.S. businesses. 
If confirmed, I will remain vigilant with regard to my ethics 
obligations and ensure that all of my actions as Ambassador are 
consistent with ethics laws. Should any questions arise, I will direct 
my staff to seek guidance from the Department's ethics officials.

    Question 3. How do you plan to avoid any meetings or discussions 
that could create the appearance of a conflict of interest, given that 
a wide range of businesses and government officials in the Dominican 
Republic could be involved with the Trump Organization's ongoing 
project?

    Answer. If confirmed, as with all meetings, I will remain vigilant 
with regard to those matters that come before me and ensure that my 
actions are consistent with ethics laws. In any matters relating to the 
Trump Organization, I will seek guidance from the Department's ethics 
officials with the goal of avoiding even the appearance of a conflict 
of interest.

    Question 4. How do you plan to ensure that Embassy staff does not 
inadvertently participate in any matters that could be perceived as 
improperly benefiting the Trump Organization or the President?

    Answer. If confirmed, I will always act in the best interest of the 
United States Government and the American people. I will never place 
the interests of any individual or company ahead of those of the 
American people. I will make clear my expectation for all Embassy staff 
to act consistent with ethics laws and to consult directly with the 
Department's ethics lawyers should they have any questions or concerns.
Tax Audit
    I understand your tax history indicates that there may be some 
confusion about what resources can be allocated for business use, as 
opposed to personal use.

    Question 5. Why were your tax returns the subject of an audit by 
the IRS?

    Answer. The personal taxes paid were the determination by the IRS 
that a portion of our disallowed client related business expenses 
became personal expenses and as such were subject to personal tax as 
opposed to business tax consistent with IRS regulations. We amended our 
tax filings with the IRS and paid the additional tax.

    Question 6 What was the nature of the issues that the IRS raised?

    Answer. The issue raised by the IRS was the disallowance of 
business expense deductions.

    Question 7. Do you believe that the IRS's decision that over 
$222,000 in back taxes was owed was correct? Why or why not?

    Answer. The payment to the IRS was the result of a compromise 
recommended by our CPAs and tax lawyer after consultation. We decided 
resolve the matter as it amounted to 2.7 percent of our sales over this 
three year period as opposed to a costly litigation process with an 
uncertain outcome.
    Our company and its financial representatives insisted that due to 
the nature of our business of representing high net worth clients, 
entertainment such as dinners and professional sporting events were 
valid business expenses. This allowed our company to form, strengthen 
and gain the trust of our prospects and existing clients. We submitted 
a list of business professionals who were our guests at the events over 
the 3 years of the audit and the income from these clients far exceeded 
the expenses incurred that ultimately became disallowed by the IRS. The 
agent summarily dismissed this information and insisted the attendance 
at these events was personal. In fact, one response was ``if your 
product was good enough, then the sales would occur without the 
personal relationships.''
Hillary Clinton ``Treasonous'' Comment
    I have said before in nomination hearings that in our public 
discourse, words matter. And they matter, in particular, for diplomats. 
On October 26, 2016, you stated, ``This corruption that Hillary Clinton 
has committed, I think it's treasonous.''

    Question 8. What precisely was your comment about treasonous 
corruption referring to?

    Answer. I had first thought the comment was made during a 
discussion of the use of an unsecured server for emails. Since then, I 
realized the comment was made during a discussion of hacked emails and 
contributions to the Clintons' charitable foundation.

    Question 9. Do you stand by that statement?

    Answer. The comment was made during the passion of the last weeks 
of a very intense campaign. If confirmed, I understand and acknowledge 
that as a representative of the United States that my comments must be 
guarded and non-political.

    Question 10. What is your definition of treason?

    Answer. My view is that treason includes the furnishing of our 
enemies with classified information as well as any act that weakens the 
power of our country to resist its enemies.

    Question 11. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Since 1975, I have regularly participated actively in free 
and democratic bipartisan election campaigns to help promote and elect 
candidates who believe in democracy, human rights and American 
prosperity. I believe the impact of my actions has served to help elect 
candidates who believe and actively support these ideals.
    Additionally, I have routinely engaged in civic and community 
organizations in an effort to make a difference in my community, 
including serving on boards and task forces,fundraising, and leading 
efforts to assist underserved communities, support equal rights, 
business and mentoring opportunities for women, prevent human human 
trafficking, and assist those who have been adversely impacted by 
natural disasters in our region.

    Question 12. What are the most pressing human rights issues in the 
Dominican Republic? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in the 
Dominican Republic? What do you hope to accomplish through these 
actions?

    Answer. U.S. human rights promotion in the Dominican Republic over 
the last several decades has been instrumental in improving the 
country's human rights record and bolstering the stability of its 
democratic institutions. Forty years ago, the Dominican Republic was 
just emerging from a tumultuous period of instability and authoritarian 
rule that followed the 1961 assassination of Dictator Rafael Leonidas 
Trujillo, whose 30-year rule was marked by mass killings and 
persecution. Since the late 1970s, however, U.S. assistance has helped 
the Dominican Republic restore democratic rule--including the peaceful 
transition of power between parties--and dramatically improve 
government authorities' respect for human rights. While we still have 
ongoing concerns such as discrimination, gender-based violence and 
human trafficking for example, these advances demonstrate that U.S. 
engagement on human rights yields significant benefits over the long 
term.
    If confirmed, I will continue the U.S. Government's longstanding 
efforts to strengthen protections for human rights as well as 
mechanisms to hold government officials accountable for human rights 
violations and acts of official corruption. I will also use my platform 
as Ambassador to work with the Dominican people and the country's 
leadership to foster greater protections for human rights.

    Question 13. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Dominican 
Republic in advancing human rights, civil society and democracy in 
general?

    Answer. The U.S. Government has long invested in strengthening 
Dominican institutions. That work continues, but institutional capacity 
remains a persistent challenge. If confirmed, I commit to ensuring U.S. 
taxpayer resources devoted to assistance programs--through our efforts 
under the Caribbean Basin Security Initiative, development projects 
funded by USAID, and other initiatives--continue to strengthen 
democratic institutions and provide training to Dominican authorities 
to address the concerns I have highlighted.

    Question 14. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Dominican Republic? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, the promotion of human rights will be 
one of my top priorities as Ambassador. Meeting with civil society 
groups is an essential part of that engagement, and I intend to meet 
regularly with groups in the Dominican Republic that work on the human 
rights issues I have outlined. If confirmed, I plan to meet with U.S. 
human rights groups before I depart for Santo Domingo and to maintain 
an ongoing dialogue with them.
    If confirmed, the professional law enforcement, military, and 
diplomatic staff at the Embassy and I will deliver messaging to the 
Dominican Government to make clear our expectations regarding respect 
for human rights by security forces. We will urge that Dominican 
authorities respect human rights principles in their conduct of 
security operations and adherence to the Leahy standards.

    Question 15. Will you and your embassy team actively engage with 
the Dominican Republic to address cases of key political prisoners or 
persons otherwise unjustly targeted by the Dominican Republic?

    Answer. Yes. Presently, the United States does not recognize any 
cases of individuals detained for purely political purposes in the 
Dominican Republic. Should I become aware of a case of politically-
motivated arrest or imprisonment, if confirmed, my Embassy staff and I 
will engage vigorously with the Government to see that such detainees 
are released without delay.

    Question 16. Will you engage with the Dominican Republic on matters 
of human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes. As I have outlined, if confirmed, promoting human 
rights , civil rights and democratic governance will be among my top 
priorities as Ambassador to the Dominican Republic. While the Dominican 
Republic has made noteworthy advances with regard to human rights in 
recent years, there is work still to do. If confirmed, I will make use 
of every tool available to champion the cause of human rights. I 
believe that by standing by our principles we demonstrate credibility 
and earn the respect of the Dominican Government and people, even when 
the messages we deliver are not easy. In doing so, we will build on our 
already-positive reputation in the Dominican Republic, where we enjoy 
high favorability ratings in public opinion polling.

    Question 17. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 18. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 19. Do you or do any members of your immediate family have 
any financial interests in the Dominican Republic?

    Answer. No.
Diversity
    Research from private industry demonstrates that, when managed 
well, diversity makes business teams better both in terms of creativity 
and in terms of productivity. What will you do to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?
    Question 20. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will immediately let it be known that 
diversity and inclusion practices will be one of my priorities in the 
embassy. First and foremost, I will lead by example by treating staff 
and requiring staff to treat everyone with respect. Additionally, I 
would be interested in reviewing the existing embassy hiring practices 
and hiring strategies to ensure they resemble the environment we 
operate in.
    Additionally, for positions in which I am able to have a hand in 
hiring, I would seek to make progress in areas where there are gaps to 
achieve diversity by asking employees for their input and referrals and 
reaching out to community organizations to find qualified candidates to 
fill the gaps.
    Finally, if confirmed, I will work to ensure that mentoring and 
training programs for staff are top of mind at all working levels of 
the Mission. I would also strive to ensure that all supervisors both 
have the tools they need to promote diversity, mentoring and inclusion 
and pledge that it is something that will remain extremely important to 
me throughout my tenure.

                               __________


     Responses to Additional Questions for the Record Submitted to
                 Robin Bernmstein by Senator Tim Kaine

    Question 1. The Medina Government has hosted preliminary talks 
between Venezuelan President Nicolas Maduro and the Venezuelan 
opposition. Although the opposition has recently announced that it will 
not participate in talks at this time, do you see any circumstances 
under which the Dominican Republic could help broker an agreement 
between the two sides? To what extent, if at all, should the U.S. 
Government encourage such a dialogue?

    Answer. The United States has rightly applauded President Medina 
and his government for their leadership in hosting negotiations between 
the Venezuelan Government and opposition. Unfortunately, over the 
course of the last several months, the Maduro regime did not take the 
opportunity to negotiate in good faith. I believe we should continue to 
encourage meaningful dialogue provided it leads to an outcome that 
guarantees free and fair elections in Venezuela.
    If confirmed, I will place a high priority on engaging the 
Dominican Government to take steps to help bring the Venezuelan crisis 
closer to a peaceful resolution. Right now, the Maduro regime does not 
appear willing to engage in meaningful negotiations, so channels like 
the Organization of American States may well be the best avenues 
through which the Dominican Republic can help bring about the free and 
fair election process the Venezuelan people deserve.

                               __________


     Responses to Additional Questions for the Record Submitted to
                   Marie Royce by Senator Bob Corker

J-1 Cultural Exchange Visa Programs
    If confirmed, you will lead the bureau responsible for 
administering the J-1 Cultural Exchange Visa Programs, including the 
Summer Work Travel Program. It has been reported that the 
administration is planning to make changes to these programs, and I 
want to make sure that any changes do not have unintended consequences 
that undermine their success in the future. I am also concerned that 
these programs are not fully understood by other stakeholders within 
the Executive Branch.

    Question 1. Will you commit that you and your staff will advocate 
for these exchange programs within the State Department and in the 
interagency?

    Answer. If confirmed, I intend to review any suggested changes to 
J-Visa or Private Sector Exchange Visitor programs regulations and 
policy guidance. As you know, the J-Visa program is an educational and 
cultural exchange, not a work program. It is funded primarily by fees 
paid by participants. The J-Visa provides public diplomacy engagement 
with more than 300,000 participants from 200 countries and territories 
annually. The program is implemented by the private sector at virtually 
no charge to the Department. I understand that participants in J-Visa 
programs with a work component are already not permitted under current 
regulation to displace American workers. I would welcome meaningful 
input from the stakeholder community on what works and what could be 
improved in the Private Sector Exchange Visitor programs and will make 
any decisions on the changes in those programs in a fully transparent 
way.

    Question 2. Will you work with me and my staff to ensure that any 
changes to the Summer Work Travel program or other exchanges have the 
effect of strengthening, rather than limiting, the programs and 
enhancing their future returns for our country?

    Answer. The Educational and Cultural Affairs Bureau's Office of 
Private Sector Exchange (ECA/EC) oversees the J Visa Exchange Visitor 
Program (EVP), which enables more than 1,500 U.S. sponsors to bring 
more than 308,000 privately funded international exchange visitors to 
the United States each year for educational and cultural exchange 
experiences in 13 different program categories, including Summer Work 
Travel (SWT).
    When international young people participate in SWT jobs, they get 
first-hand experience with American society and culture. SWT student 
participants are engaged primarily by small and family-operated U.S. 
businesses in tourist destinations to meet short-term, high-volume 
worker needs during peak tourist seasons. SWT students supplement and 
sustain the existing U.S. workforce in these seasonal endeavors and 
serve as cultural ambassadors from their home countries to American 
communities.
    Private Sector Exchange programs come at virtually no cost to U.S. 
taxpayers, funded as they are through fees paid by the sponsors and 
participants, but they have many public diplomacy benefits that serve 
foreign policy goals, advance national security, bolster U.S. 
leadership and influence in the world, and promote mutual understanding 
between Americans and the people of other countries. If confirmed, I 
welcome the opportunity to hear from all of the stakeholders in these 
programs on their effectiveness and value for our country.

                               __________


     Responses to Additional Questions for the Record Submitted to
                 Marie Royce by Senator Robert Menendez

Exchanges Budget
    International exchange programs are often considered one of the 
most effective U.S. public diplomacy efforts, building long-term 
relationships and mutual understanding between U.S. and foreign 
participants. Funding for State Department educational and cultural 
exchanges has mostly remained level or increased slightly in recent 
years. In the President's FY 2018 budget for State Department programs, 
however, exchanges funding received a proposed cut of over 50 percent 
from FY 2017 levels, based on the argument that such funding is no 
longer necessary given the expansion of non-U.S. Government funded 
exchange opportunities in the United States and globally over the last 
five decades.

    Question 1. Do you agree that exchanges funding should be cut?

    Answer. Exchanges are a valued aspect of America's international 
leadership. At any level of resources, if confirmed, I would be 
committed to ensuring that ECA assets are marshaled to support the 
administration's highest foreign policy priorities.

    Question 2. What is the importance of State Department funding for 
international exchanges?

    Answer. My understanding is that State Department exchanges are 
designed to respond to the foreign policy challenges faced by our 
country--that they are created and conducted in consultation with 
colleagues throughout the Department, with Missions around the world, 
and with Congress.
    Exchanges move people in order to move values, policies and ideas. 
They create networks of men and women around the globe who have shared 
interests and who are prepared to make common cause with us.
    I see exchanges as American values in action and I know from my own 
experience that the relationships that grow out of this engagement 
endure through elections, crises and regime changes.
    I understand that one in three world leaders today is an alumnus or 
alumna of ECA exchanges. I see this as a remarkable fact and one that 
provides our President and Secretary with interlocutors who have 
firsthand experience of the United States.

    Question 3. What effect do you think a significant cut to exchanges 
funding would have on U.S. and foreign participation in international 
exchanges and the promotion of U.S. foreign policy through such 
exchanges?

    Answer. If confirmed, I would be committed to focusing the Bureau's 
programs on our nation's highest strategic priorities. Significant 
reductions in programs and personnel would, of course, reduce the 
number and variety of exchanges the Department would have available to 
implement.
    American missions around the world rely heavily on exchanges to 
reach key audiences and advance policies. If confirmed I would consult 
closely throughout the Department to ensure ECA programs were targeted 
on the most important objectives.

    Question 4. Can ECA rely on private sector organizations and 
individual institutions of higher learning to maintain, expand, and 
effectively administer international exchange programs that ECA would 
no longer be able to support? Is increasing ECA's exchange partnerships 
with private corporations an option in filling the funding gap for 
exchanges? Why or why not?

    Answer. As I have come to understand, cooperation and partnership 
with the private sector are the way ECA does business. All ECA grants 
go to American organizations and more than 90 percent of its budget is 
spent in America and directly invested in the skills and abilities of 
American citizens.
    Increasing such partnerships would be a priority of mine and, if 
confirmed, I believe that my experience as a businesswoman has given me 
the background and insights necessary to forge such partnerships.
    The American private sector is one of our Nation's crown jewels--a 
tremendous repository of knowledge and talent as well as a constant 
source of innovation--but it does not exist to serve the daily demands 
of foreign policy and there will always be a need for government 
exchanges that America's leadership can call upon and direct when and 
where needed.

    Question 5. ECA has proposed reducing or terminating funding for a 
number of exchange programs in recent years, but Congress has 
maintained ongoing funding for these programs in many cases. What 
programs should receive priority funding, and which might be curtailed 
or ended, in your opinion? Can programs be combined or otherwise 
streamlined to increase budget efficiencies? How will continuing 
certain programs slated by ECA for cuts or termination affect your 
strategic planning, if at all?

    Answer. If confirmed, I will be reviewing all ECA programs, 
considering those that have global reach versus programs that are 
regional or just for one country, looking at the programs that have the 
strongest support from our Missions around the world, and keeping in 
mind as well the programs that engage American citizens and provide 
them with the skills needed for our national security and economic 
prosperity.
    The recent release of the Department of State-USAID Joint Strategic 
Plan and pending Functional Bureau Strategy exercise will give me and 
the Bureau an opportunity to strategize our priorities for exchange 
programs going forward.
    If confirmed, I will look at any and all efficiencies possible for 
ECA operations and activities.
    I understand that ECA programs were developed in response to 
requests from the Department's regional bureaus, from American 
embassies, from the White House and Congress and I will want to hear 
the input and views of all key stakeholders.
    If confirmed, I would want to quickly consult with Department 
leadership to ensure that any changes in exchanges--whether increases 
or reductions--were consistent with administration foreign policy 
goals. And I would want to review their history of funding and their 
priority for key stakeholders.

    Question 6. Proponents of continued and/or increased funding for 
ECA-sponsored international exchanges often assert that such exchanges 
provide substantial economic benefits to the United States. The U.S. 
Advisory Commission on Public Diplomacy reported that in FY 2017 
foreign students contributed $35.8 billion to the U.S. economy, support 
over 400,000 U.S. jobs, and that 97 percent of ECE funding goes to U.S. 
organizations, businesses, and individuals. In your estimation, will a 
significant reduction in ECE funding have any negative effect on any 
overall economic benefit that many ECA-administered exchange programs 
provide?

    Answer. If confirmed, assessing the benefits of ECA programs for 
the United States and for American citizens would be a priority. I have 
seen the same statistics that you have cited and I would want to be 
sure that I understood the full range of consequences of any changes in 
ECA programs.

    Question 7. In the past, a number of problems have been cited with 
EVP private-sector sponsor organizations placing participants in 
unsatisfactory conditions, including youth participants. Changes to 
federal regulations tightening sponsor requirements and oversight have 
resulted in better results for participants, but abuses still occur at 
times.[1] What additional steps, if any, are needed?

    Answer. I know that the Department takes seriously any allegations 
of abuse. Our first and foremost priority is to ensure each exchange 
visitor participates in a successful program. A large part of defining 
a successful program is minimizing risks to the health, safety, and 
welfare of all of our exchange visitors.
    CA has developed regulatory guidelines for its private sector 
sponsor organizations to ensure the health, safety, and welfare of 
participants. It regularly conducts monitoring and evaluation of their 
compliance with these regulations. In addition, Bureau analysts work to 
provide assistance to any private-sector sponsored exchange visitors 
who contact the Department seeking help through a hotline.
    If confirmed, I am committed to ensuring that safety is the number 
one priority.

    Question 8. In general, what changes would you recommend to improve 
the system of private partner administration of exchanges? What 
additional resources does ECA need to increase its monitoring 
capabilities or to create a more hands-on role in administering 
exchanges?

    Answer. If confirmed, I would be committed to ensuring that private 
sector programs are educational and cultural exchange programs that 
benefit American foreign policy. I am committed to ensuring they 
continue to serve as useful catalysts for positive change, creating 
generations of leaders who understand the significance of widespread 
global engagement and mutual understanding.

    Question 9. The U.S. Advisory Commission on Public Diplomacy 
recently released in FY 2017 a comprehensive review of public diplomacy 
programs including the work of ECA. In its recommendations, the 
Commission found that there are ``over 75 active ECA programs'' with 
widely varied budgets, participant numbers, scope, and purposes, 
administered under disparate ``knowledge management systems'' by ECA 
offices and public diplomacy officers in U.S. embassies abroad. In your 
opinion, does ECA need to reform its administrative structure and 
knowledge management? Will possibly reduced budgets in the future 
demand such reform?

    Answer. I too read this report and have found it to be enormously 
useful as I have prepared. If confirmed, I will be reviewing all ECA 
programs, understanding that their flexibility and diversity is one of 
their strengths in serving U.S. foreign policy goals. I would bring to 
this important effort the knowledge and abilities I have gained in the 
private sector and my commitment to rigorous evaluation to ensure 
maximum benefit for our country of every dollar.
Exchanges Broadly
    International exchange programs are often considered one of the 
most effective U.S. public diplomacy efforts, building long-term 
relationships and mutual understanding between U.S. and foreign 
participants.

    Question 10. What do you believe are the benefits that exchange 
programs provide to the United States? What role do exchanges play in 
advancing U.S. foreign policy and meeting the objectives of that 
policy?

    Answer. Exchanges create networks of men and women around the globe 
who have shared interests and who are prepared to make common cause 
with us.
    I see exchanges as American values in action and I know from my own 
experience, that the relationships that grow out of this engagement 
endure through elections and crises and regime changes.
    I understand that one in three world leaders today are alumni of 
ECA exchanges. I see this as a remarkable fact and one that provides 
our President and Secretary with interlocutors that have firsthand 
experience of the United States.

    Question 11. Many current calls for improving U.S. public diplomacy 
and international broadcasting advocate pushing a sharper promotion of 
U.S. interests, stronger persuasive tactics, countering of harmful 
propaganda, and increasing social media, broadcasting, and other 
information dissemination technologies and programs. Exchanges do not 
usually promote a pointed, controlled policy message, but instead allow 
for participant voices and experiences to be shared in an organic 
fashion. What is the importance of exchanges in this seemingly more 
fraught and urgent persuasive messaging environment?

    Answer. It is my experience from the private sector that exchanges 
can and do serve multiple objectives and help us reach a variety of 
foreign policy goals. I am not sure that there needs to be a dichotomy 
between tightly-focused foreign policy goals on the one hand and 
programs that define the field of engagement on the other. In these 
complicated and dangerous times, Department programs need to do both.
    I have reviewed the new National Security Strategy of the United 
States and was impressed with its focus on the power of values, on the 
importance of networks and alliances, and on not ceding the public 
engagement space to our competitors in the world.

    Question 12. Do exchanges need to become more disciplined in the 
way participants experience their exchanges, to ensure U.S. foreign 
policy interests are at the forefront?

    Answer. I believe that exchanges should always serve foreign policy 
and strengthen America's international leadership. ECA exchanges are 
part of the Department of State and are funded by the American taxpayer 
and, if confirmed, I would consider myself accountable to the American 
public to demonstrate their benefits.

    Question 13. What new vehicles for U.S. international exchange 
programs are being implemented or are on the horizon, and what, in your 
view, are the most important innovations that need to be made to 
improve exchange program effectiveness?

    Answer. In preparing for this hearing, I have been impressed to see 
the strides that ECA has made in pioneering virtual exchanges in a wide 
variety of ways. They are using the latest technology to connect high 
school classrooms, to professionalize the teaching of English, and to 
engage audiences that are difficult to reach through traditional means.
    f confirmed, I would be excited to explore the possibilities of 
technology and to increasing the virtual components of ECA's in-person 
exchanges.

    Question 14. How do you plan to improve ECA's leveraging of online 
tools and fora to expand exchanges and enhance their effectiveness?

    Answer. If confirmed, to give just one example, I would make it a 
priority to review the various ways in which ECA engages alumni around 
the world. There are hundreds of thousands of ECA alumni all across the 
planet--including those of the American Council of Young Political 
Leaders--who are leaders in their own professions and communities. 
Close and fruitful cooperation with this distinguished and far-flung 
network of men and women demands innovative use of online tools.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Marie Royce by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of my career, I have had a number of 
opportunities to engage in work that promotes human rights and 
democracy. Three specific examples include work related to Afghanistan, 
Russia, and as a Board Director for the American Council of Young 
Political Leaders.
    I have had the good fortune to be engaged with Afghanistan 
professionally and personally for several years. I was recognized by 
the Nooristan Foundation with the Afghan Women ``Commitment'' award for 
my ongoing support. I championed programs which promoted human rights 
and democracy. As one example, Afghan women were given advice outlining 
their legal rights. And given support for executing those rights.
    Additionally, while serving as a Professor, at California State 
Polytechnic University, Pomona, in 2003, I was invited to teach at 
Petrozavodsk University, Russia. While the curriculum dealt largely 
with international business, I was able to address issues of human 
rights and democracy with the Russian faculty and students. I 
interviewed six Professors in Russia, and we subsequently mentored them 
at Cal Poly University. We in the Faculty helped them create several 
courses. During their stay they were exposed to several examples of 
transparency, free speech, rule of law, democratic governance and human 
rights. I arranged for them to cast their vote in their President 
election, at the Russian Consulate in Los Angeles.
    Finally, as a former delegate to Hungary & Poland, I served as a 
Board Director for the American Council of Young Political Leaders 
(ACYPL). We focused on sending delegations into emerging democracies in 
Africa, South Asia, Eastern Europe, and South America. I personally 
focused on increasing the number of women and minority delegates. One 
of my nominees helped the country of Nepal create its first 
Constitution. Our delegations promoted democratic governance, conflict 
resolution and human rights. I was able to support an in-bound 
delegation of young leaders from India and Pakistan, and hosted 
meetings for mutual understanding.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If I am confirmed, I will promote the State Department's 
formal mentoring program for members of the Foreign Service. I will 
ensure that ECA staff is aware of this opportunity, and how to 
participate. I will encourage the staff to be active participants in 
this important program. I will also invest in diversity based 
mentorship initiatives.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of Education and Cultural Affairs are 
fostering an environment that is diverse and inclusive?

    Answer. Throughout my career, I have come to believe that people 
support what they create. As a result, if confirmed, I would strive to 
promote a workplace culture that is diverse and inclusive through 
enlisting the support and input from each of ECA's supervisors, 
creating a joint plan around this goal, and working together to track 
our progress.
    I believe that successful engagement and retention of diverse 
talent includes things like orientation, employee engagement and 
retention, performance management, flexible work arrangements, 
interpersonal communication, learning and development, as well as 
mentoring and diversity training to support these efforts. If 
confirmed, I hope to work tirelessly with the talented team in ECA to 
further these efforts.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.Q02
    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No, my immediately family and I do not have any financial 
interests in any country abroad.

    Question 7. What are the most pressing human rights concerns in the 
field of Educational and Cultural Affairs today? What are the most 
important steps you expect to take--if confirmed--to advance human 
rights and democracy? What do you hope to accomplish through these 
actions?

    Answer. The Bureau of Educational and Cultural Affairs promotes 
mutual understanding through the work that ECA does in communities 
around the globe and in all 50 states to introduce American values to 
opinion-makers, professionals, current and future leaders, and youth. 
These global networks of men and women are often willing to make common 
cause with the United States. If confirmed, I would use these networks 
to advance longstanding U.S. values on issues of mutual concern, such 
as human rights, rule of law, civil society, and democracy.

    Question 8. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the field of 
Educational and Cultural Affairs in advancing human rights, civil 
society and democracy in general?

    Answer. Authoritarian, non-democratic regimes that seek to keep 
their citizens from enjoying universal rights and freedoms and prevent 
their citizens from engaging with their American counterparts through 
ECA programs are some of the main obstacles to ECA programming. These 
regimes take measures to prevent their citizens from engaging with 
their American counterparts through exchange programs, travel, and 
English-language study. If confirmed, I would closely examine how ECA's 
programs, resources, and networks might best continue to address human 
rights concerns in light of U.S. policy priorities.

    Question 9. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the field of Educational and Cultural 
Affairs?

    Answer. Yes. My background in women's leadership and outreach to 
disadvantaged communities, as well as my experience with the range of 
civil society groups and NGOs that advocate for human rights, has 
impressed upon me the importance of such connections. If confirmed, I 
will use my experience in conjunction with ECA's own extensive civil-
society networks and public-private partnerships to further deepen our 
cooperation with this sector.
Proposed State Department Budget
    For FY 2019, the White House proposed a draconian 75 percent cut to 
the budget for the State Department's Bureau of Educational and 
Cultural Affairs. Last year, there was talk that the administration 
would eliminate the budget entirely. As you know, ECA's work has 
historically received strong bipartisan support given that its programs 
are a strategic, long-term investment in promoting democratic values 
and strengthening U.S. standing in the world.

    Question 10. If confirmed, how will you make the case to Secretary 
Tillerson and the White House about the need for robust ECA funding and 
the strategic nature of ECA programs?

    Answer. My understanding is that ECA continuously aligns its 
programs with State Department policy goals and ensures that its 
academic, professional, cultural, and sports exchanges are clearly 
linked to those goals as a part of broader U.S. public diplomacy 
initiatives. If confirmed, I would prioritize maintaining the relevance 
and effectiveness of ECA's initiatives in all aspects of U.S. 
diplomacy, and will not be afraid to advocate for ECA's programming 
with State Department leadership.

    Question 11. If confirmed, will you commit to being a forceful 
advocate for robust funding for Colombia?

    Answer. I am pleased to note that the ECA Principal Deputy 
Assistant Secretary, Ambassador Jennifer Zimdahl Galt, was just in 
Bogota to participate in the U.S.-Colombia High-Level Dialogue. She 
chaired the Education, Sports, and Culture Working Group and was joined 
by colleagues who engaged on topics ranging from joint efforts to 
counter illegal narcotics trafficking to advancing regional security to 
expanding our economic partnership. If confirmed, I will continue ECA's 
efforts on behalf of the strong bilateral relationship between the 
United States and Colombia and in support of U.S. foreign policy goals 
in this key region.
Global Public Opinion of the United States
    In the past 18 months, global public opinion of the U.S. has 
plummeted dramatically. This not only has implications for our foreign 
policy, but for institutions in our country. Media reports have shown 
that many U.S. universities are having trouble recruiting foreign 
students, which has financial implications for the schools.

    Question 12. How can we be effective in the pursuit of our foreign 
policy interests and values--how you can be effective at ECA--given 
President Trump's race to the bottom on ethics, values and morality?

    Answer. If confirmed, I look forward to promoting the U.S. higher 
education system, which is one of our nation's greatest assets and 
essential to our national security and economic interests at home and 
abroad. ECA promotes U.S. higher education, in conjunction with our 
missions overseas, through its network of more than 400 EducationUSA 
advising centers worldwide, which act as the official source on U.S. 
higher education abroad and counter-balance messages from competitor 
nations, such as China and Russia, looking to attract international 
students to their own shores. Due in part to the work of EducationUSA, 
and the relationships fostered through ECA exchanges, more than one 
million international students now come to the United States to study 
at over 4,000 U.S. colleges and universities every year. In 2016-17, 
they contributed over $39 billion to the U.S. economy, up from $22.7 
billion only five years ago, making international education the 
nation's seventh-largest service sector export and supporting more than 
450,000 domestic American jobs in communities across the country. 
International students are attracted to the United States by the 
excellence, dynamism and diversity of U.S. higher education 
institutions. These students enrich their understanding of U.S. society 
and develop lasting ties in fields that benefit the United States and 
its interests in the world long after they return home.
J-1 Visas
    In August of last year, a bi-partisan group of 17 senators sent 
Secretary Tillerson a letter in support on the J-1 Visa Summer Work 
Travel Program. Participants in the program have the opportunity to 
work and learn from their experience in the U.S. Additionally, many 
small businesses across the United States are dependent on participants 
in the J-1 visa program to meet their seasonal labor needs. Ending or 
reducing this program would have a real impact on communities around 
the country.
    Question 13. What is your assessment of the J-1 visa program?

    Answer. If confirmed, I look forward to facilitating the J Visa 
Exchange Visitor Program (EVP), which enables more than 1,500 U.S. 
sponsors to bring more than 308,000 privately funded international 
exchange visitors to the United States each year for educational and 
cultural exchange experiences in 13 different program categories. 
Private Sector Exchange programs come at virtually no cost to U.S. 
taxpayers, funded as they are through fees paid by the sponsors and 
participants, but they have many public diplomacy benefits that serve 
foreign policy goals, advance national security, bolster U.S. 
leadership and influence in the world, and promote mutual understanding 
between Americans and the people of other countries.

    Question 14. If confirmed, do you commit to working with members of 
the Senate to ensure that the U.S. Government remains committed to the 
J-1 visa program?

    Answer. Yes. As you know, private sector exchange programs are 
educational and cultural exchange programs, not work programs. They are 
funded primarily by fees paid by participants. These programs provide 
public diplomacy engagement with more than 308,000 participants from 
200 countries and territories annually, many of whom would never 
otherwise experience American values firsthand. These programs are 
implemented by the private sector at virtually no cost to the 
Department. I understand that in some categories of exchange, employers 
are required to pay participants a salary commensurate with the salary 
they would pay U.S. workers, so employers cannot use the program to 
obtain low cost labor. I would welcome meaningful input from the 
stakeholder community on what works and what could be improved in 
private sector exchange visitor programs, and I will make any decisions 
on the changes in those programs in a fully transparent way.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Marie Royce by Senator Christopher A. Coons

    Question 1. Recently, the administration proposed a regulatory 
agenda that identifies all five J-1 visa Exchange Visitor programs with 
a work component for future regulations (summer work travel, au pair, 
camp counselor, intern, and trainee). What role will you play in 
reviewing draft regulations or policy guidance that could alter J-1 
programs? Will you commit to undertaking any regulatory review of these 
programs in a fully transparent way and in a manner that continues 
their significant public diplomacy benefits?

    Answer. I intend to review any suggested changes to J-Visa or 
Private Sector Exchange Visitor programs regulations and policy 
guidance. As you know, the J-Visa program is an educational and 
cultural exchange, not a work program. It is funded primarily by fees 
paid by participants. The J-Visa provides public diplomacy engagement 
with more than 300,000 participants from 200 countries and territories 
annually. The program is implemented by the private sector at virtually 
no charge to the Department. I understand that participants in J-Visa 
programs with a work component are already not permitted under current 
regulation to displace American workers. I would welcome meaningful 
input from the stakeholder community on what works and what could be 
improved in the Private Sector Exchange Visitor programs and will make 
any decisions on the changes in those programs in a fully transparent 
way.

    Question 2. The Summer Work Travel program alone contributed more 
than $500 million to the U.S. economy in 2016. Can you comment on the 
value of these programs to both the exchange participants and the U.S. 
economy?

    Answer. The Educational and Cultural Affairs Bureau's Office of 
Private Sector Exchange (ECA/EC) oversees the J Visa Exchange Visitor 
Program (EVP), which enables more than 1,500 U.S. sponsors to bring 
more than 308,000 privately funded international exchange visitors to 
the United States each year for educational and cultural exchange 
experiences in 13 different program categories, including Summer Work 
Travel (SWT).
    When international young people participate in SWT jobs, they get 
first-hand experience with American society and culture. SWT student 
participants are engaged primarily by small and family-operated U.S. 
businesses in tourist destinations to meet short-term, high-volume 
worker needs during peak tourist seasons. SWT students supplement and 
sustain the existing U.S. workforce in these seasonal endeavors and 
serve as cultural ambassadors from their home countries to American 
communities.
    Private Sector Exchange programs come at virtually no cost to U.S. 
taxpayers, funded as they are through fees paid by the sponsors and 
participants, but they have many public diplomacy benefits that serve 
foreign policy goals, advance national security, bolster U.S. 
leadership and influence in the world, and promote mutual understanding 
between Americans and the people of other countries.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Joseph E. Macmanus by Senator Marco Rubio

    Question 1. I would like to clarify the timeline. When, to the best 
of your recollection, did you first learn of an attack on the 
diplomatic compound in Benghazi on September 11, 2012?

    Answer. According to many published accounts, the attack began at 
approximately 3:42 p.m. Eastern Time in Washington on September 11, 
2012. The State Department Operations Center official Log Book notes 
that initial contact with the office of the Secretary and other senior 
officials occurred at 4:06 p.m. in the form of a written alert. I would 
have learned of the attack when this written alert was circulated.

    Question 2. Did other senior officials initially believe (as you 
did) that the attack was a terrorist act?

    Answer. My first impression was not a belief but an instinctive 
reaction. Others may have shared a similar reaction. I cannot speak for 
them or from any particular knowledge about their views.
    In our profession, in the aftermath of events like this, we advise 
restraint when one is tempted to draw uninformed conclusions, 
respectfulness of the obvious emotions, and care in separating opinions 
from facts. The difficult work is to use hard information and analysis 
to build an understanding of what took place takes time. We caution 
officers to ``stay in their lane,'' knowing that limited access to 
intelligence and other compartmented information results in certain 
officials gaining a more structured and informed analysis than others. 
Forming a three-dimensional picture of what took place takes time.

    Question 3. Did senior officials in the State Department believe by 
September 16, 2012, that the attack was likely terrorism, rather than 
being related to anti-American protests?

    Answer. My own view had not altered appreciably from September 11 
to September 16, 2012. The views of others were not obvious, but as I 
said, professional discipline would guide officers to keep their 
personal views largely personal since, at that point, it was early to 
draw final conclusions. I have never researched the record on this 
question and cannot speak for other senior officials.

    Question 4. Did you or other senior State Department officials have 
any input into National Security Advisor Susan Rice's talking points in 
public remarks she made on Sunday, September 16, 2012?

    Answer. I did not have input or contribute to talking points as you 
describe. As to others, I have no specific knowledge as to other senior 
officers' input into the preparation of these points or remarks. I have 
seen references to these talking points in public reports and the press 
and was generally aware of them but not involved in any input.

    Question 5. Do you believe that any senior administration officials 
misled the public on the nature of the attack in the two weeks that 
followed the attack?

    Answer. I would answer this from the perspective of a professional 
diplomat who has led crisis communications activities my entire career.
    In crises, no matter how much you get right, you get a lot wrong. 
The law of inverse proportion of speed and accuracy immediately 
overwhelms you. The comments made in the opening moments rarely prove 
accurate in the end. The spokesperson slips up, and the misimpression 
sinks in. Analysis is lacking that might help bring clarity and 
answers, and complex environments always need careful after-action 
review to produce reliable conclusions. In addition, even after review, 
questions and uncertainties persist.
    The frustration that publics and audiences feel in this regard, of 
never knowing ``absolutely'' what occurred, has cropped up in every 
crisis I have been involved in or witnessed. Communicating with the 
American people obviously requires authenticity and transparency to be 
effective, but more importantly, to remain true to the serious nature 
of the responsibility. Otherwise, the audience feels misled.
    In more than one administration, officials have needed to 
acknowledge their communications failures and to state that officials 
in the administration `never intended to mislead the American people.' 
Those statements, albeit sincere, rarely erase the uncertainty that 
lingers in people's minds.

    Question 6. On February 13, 2003, four Americans who were 
Department of Defense contractors on a U.S. Government counter-
narcotics flight mission in Colombia were shot down by the FARC. The 
pilot, a retired member of the U.S. Army's Delta Force, was executed on 
the spot and three Floridians were captured. They were held captive and 
severely tortured for over five and a half years, until they were 
rescued by the Colombian Army. While implementing the peace accord is 
the Colombian Governments primary focus, we still have a group of 
Americans, all former U.S. military, and their families, who were 
subjected to atrocities at the hands of the FARC and have yet to 
receive any closure. Would you work with me to find a solution to make 
these brave Americans whole again?

    Answer. The four U.S. Department of Defense contractors shot down 
by the FARC in 2003 were victims of a heinous crime, and they and their 
families deserve justice. My highest priority is to protect the lives 
and interests of U.S. citizens. If confirmed, I will work closely with 
you on this issue.



                               __________


     Responses to Additional Questions for the Record Submitted to
             Joseph E. Macmanus by Senator Robert Menendez

FARC
        Although there is little doubt that the FARC has a significant 
        amount of financial assets following decades of criminal 
        activity, there has always been an undeniable lack of clarity 
        surrounding the group's wealth. Guerrilla commanders 
        consistently deny that these riches exist.

    Question 1. What is your assessment on the Revolutionary Armed 
Forces of Colombia's (FARC) commitment, as established in Colombia's 
peace agreement, to provide information on their finances? If 
confirmed, do you commit to keeping the U.S. Congress informed about 
your work with the Government of Colombia to address the FARC's illicit 
finances and any efforts to combat illicit financial networks?

    Answer. As part of the 2016 peace agreement, the FARC agreed to 
hand over all property and assets in its possession for use as 
reparations for victims of the conflict. In August 2017, the Colombian 
Government announced it received a 135-page inventory of FARC assets, 
valued at $330 million. In February 2018, the Colombian attorney 
general seized an additional $230 million in undisclosed assets 
allegedly laundered through a series of front companies. After the 
seizure, the office of the attorney general indicated that it is 
pursuing additional investigations into undeclared FARC property and 
assets.
    The U.S. Government believes the FARC is not fully complying with 
its peace accord commitments to provide critical information about the 
cocaine trade and the illicit assets the FARC illicitly obtained during 
the conflict. The U.S. Government continues to reiterate to the 
Government of Colombia that the FARC must do more to comply with such 
commitments.
    I commend the Government of Colombia for diligently investigating 
additional assets not disclosed by the FARC. If confirmed, I will 
ensure the U.S. Government continues to support efforts to find and 
seize undeclared FARC assets. I will also work closely with the U.S. 
Congress on this issue.
Labor Rights
    In July 2016, the AFL-CIO and five Colombian workers' organizations 
filed a petition alleging numerous shortcomings in the implementation 
of the U.S.-Colombia Trade Promotion Agreement (TPA) and argued that 
they constituted a violation of the agreement. Those concerns included 
alleged failures by Colombia to: 1) effectively enforce its labor laws 
in a manner that affects trade and investment; 2) adopt and maintain 
freedom of association and the effective recognition of the right of 
collective bargaining, as called for in the International Labor 
Organization Declaration on Fundamental Principles and Rights at Work; 
and 3) ensure prompt and transparent proceedings in cases of alleged 
labor rights violations.
    In response, the Department of Labor (DOL) made 19 recommendations 
to Colombia that, if fully implemented, would constitute progress in 
leveling the playing field between American workers and their Colombian 
counterparts. DOL's January 2018 review found that while Colombia had 
made progress in some areas, it must take additional steps to address 
the significant concerns raised in DOL's original report.

    Question 2. What is your assessment of the Colombian Government's 
progress thus far in addressing these labor violations, and will you 
commit to pressing the Colombian Government to fully implement the 19 
DOL recommendations?

    Answer. Since the U.S. Department of Labor (DOL) issued its January 
2017 report, the Government of Colombia has made efforts to implement 
the 19 recommendations. For example, Colombia installed an electronic 
case management system in all regional ministry of labor offices and in 
two special administrative offices. In addition, the Colombian 
Government issued a resolution making it mandatory for labor inspectors 
and managers to use and update the system. Colombia also published 
statistics about the total amount of fines collected and the number of 
inspections conducted.
    The Colombian Government has committed to convert the remaining 804 
of its 904 inspector positions to career civil service positions and 
recruit candidates through a public competition by the end of 2018. 
Furthermore, Colombia has agreed to improve and provide relevant 
training to all labor inspectors through a program being implemented by 
the International Labor Organization and funded by DOL.
    If confirmed, I will work with the Colombian Government on matters 
of labor, human rights, and governance as part of our bilateral 
mission. Colombia is a close friend of the United States, and our 
countries have long enjoyed outstanding cooperation on these issues. My 
efforts will include a variety of approaches, including programming, 
diplomatic engagement, and high-level dialogues with the Colombian 
Government.



                               __________


     Responses to Additional Questions for the Record Submitted to
            Joseph E. Macmanus by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a Public Diplomacy officer, a career diplomat, an 
Ambassador, the advocacy of American values was at the center of my 
work in nearly every assignment.
    In El Salvador in the late 1980s, the fundamental underpinnings of 
our assistance programs were an ongoing discussion of and training in 
the institutions of democratic governance that arise from the rights of 
citizens in a democracy. I oversaw programs for journalists including 
professional ethics, accuracy in reporting, and the role of a free 
press in a democracy. We engaged in training in-country and through 
exchange programs to the United States for journalists, civil society 
leaders, academics, and government officials on civic education and 
civil society. In coordination with INL and USAID, we promoted 
professionalization in law enforcement, the courts, and the military. I 
led a training program for Salvadoran military commanders to SouthCom, 
then based in Panama, to discuss civil-military relations and training 
in relations with the media.I
    n Poland, immediately following the end of the Cold War, I led 
outreach efforts in southern Poland to engage with publics, civil 
society, and local governments on the role of each in a free and 
democratic society. Education in the rights of individuals in a free 
society and the role of a free press were part of our ongoing outreach 
to the media in major Polish media markets. I also ran a large exchange 
program to introduce Polish students and young political leaders to the 
United States to prepare them for leadership roles in a pluralistic and 
democratic Poland. I worked closely with the Jewish community in Krakow 
on the preservation of Jewish antiquities and to advocate for the 
rightful place for Jewish culture in the historical record.
    The promotion of our basic values remains at the center of my work 
and my career. All programs, all advocacy, all policies, come from our 
basic understanding and respect for the Constitution and the Bill of 
Rights. In an international context, this becomes both the framework 
for our work and its goal: to advance respect for human rights and the 
rights of citizens in democracies.
    As I noted in my testimony, rebuilding the social fabric in 
Colombia will be the precondition for any durable progress in the peace 
process. If confirmed, I will keep it at the center of my focus.

    Question 2. What are the most pressing human rights issues in 
Colombia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Colombia? What do 
you hope to accomplish through these actions?

    Answer. Colombia continues to make progress on human rights issues, 
including through its efforts to implement the historic 2016 peace 
accord with the FARC. It is hard to overstate the human rights benefits 
of ending the hemisphere's longest-running armed conflict, which cost 
the lives of more than 250,000 and displaced millions. Ending this 
conflict has permitted the Colombian Government to take steps to bring 
justice to victims and their families, fight narcotrafficking and 
organized crime by extending the reach of state institutions to former 
conflict zones, reduce violence, and protect human rights in Colombia.
    If confirmed, I will engage with the Colombian Government, civil 
society, the private sector, and the international community to support 
and encourage Colombia's efforts to secure continued progress on human 
rights.Addressing human rights challenges is essential to build the 
just and lasting peace the Colombian people deserve. Colombia is 
recognizing past human rights violations, and is affirming the right of 
victims to truth, justice, and reparation. Implementation of these 
positive steps will be necessary for sustainable peace and 
reconciliation.
    The United States has a clear interest in supporting a stronger, 
stable Colombia that protects human rights. Peace will better enable 
Colombia to increase its efforts in counternarcotics, counter-
transnational crime, and migration, and to expand our bilateral 
economic relationship.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Colombia in 
advancing human rights, civil society and democracy in general?

    Answer. Colombia is a consolidated democracy undertaking laudable 
efforts to improve the transparency and accountability of its 
governance and to defend democracy abroad. The Colombian Government has 
prioritized human rights and made advances on some important cases, but 
some challenges remain. I consider human rights and social inclusion to 
be issues central to Colombia's ability to secure a just and lasting 
peace, ending decades of conflict.
    If confirmed, I would stress to the Colombian Government the need 
to fill power vacuums in areas formerly controlled by the FARC. The 
Colombian Government's challenge is to establish a comprehensive state 
presence to provide not only security services but also education, 
infrastructure, local governance, and victims' assistance to deny 
criminal groups a foothold and to reverse recent encroachments by 
illegal armed groups. The implementation of a comprehensive plan to 
provide government services in remote areas will be important to 
sustain peace, ensure citizen security, and prevent violence against 
defenders of human rights and social activists. These activists play a 
vital role in ensuring victims and marginalized groups have voice and 
presence in helping shape Colombia's peace accord implementation. I 
would also continue to support the Colombian Government's efforts to 
dismantle the illegal armed groups that are responsible for crimes 
against human rights defenders and civil society activists, and to urge 
thorough investigations and prosecutions into these crimes.
    Colombia's marginalized populations, including Afro-Colombians, 
indigenous people, internally displaced persons, women, and children, 
continue to suffer disproportionately from forced displacement, 
landmines, sexual violence, forced recruitment, and social exclusion. 
The U.S. and Colombian Governments seek to ensure inclusive prosperity 
and equality of opportunities to advance the livelihoods of African 
descendant and indigenous communities in both countries. The inclusion 
of historically marginalized groups in peace accord implementation is 
essential. We are strong proponents of the accord's Ethnic Chapter and 
encourage the Colombian Government to implement all aspects of the 
accords, including measures to guarantee the rights of those most 
affected by conflict.
    Colombia has indicated its commitment to hold accountable those 
responsible for atrocity crimes and crimes involving human rights 
violations and abuses on all sides of the conflict. The U.S. Government 
recognizes and supports the Colombian Government's ongoing efforts at 
investigations and prosecutions. If confirmed, I would encourage the 
Government of Colombia to implement the Special Jurisdiction for Peace, 
intended to hold accountable those responsible for conflict-related 
crimes, promote truth-telling, ensure non-repetition, and provide 
reparations for victims.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Colombia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. The protection of human rights has long been a core 
component of U.S.-Colombian relations and a central value of our 
foreign policy. The NGO community plays a vital role in shining a light 
on human rights issues and challenges, and has valuable contributions 
and perspectives to share. There is a vibrant community of NGOs and 
civil society organizations focused on human rights issues in Colombia. 
If confirmed, I will continue the United States' longstanding tradition 
of engaging regularly with U.S.-based and Colombian NGOs and civil 
society organizations on these issues to understand their concerns and 
seek their input and proposals.
    The Leahy laws not only advance our human rights agenda, but they 
also promote the professionalization of the security forces with which 
we partner, making them better security partners in the long run. If 
confirmed, I will work closely with the Country Team, the U.S. 
interagency, Colombian Government, and civil society to ensure we 
direct all U.S. assistance to rights-respecting security forces in an 
efficient and effective manner in accordance with U.S. law. In 
accordance with the Leahy law, I will ensure no assistance or equipment 
is provided to Colombia security forces that commit gross violations of 
human rights. Leahy vetting plays an important role in furthering U.S. 
Government programs and objectives on human rights and encourages 
security force professionalization. I will continue to support Embassy 
Bogota's leadership in continuously supporting human rights initiatives 
and sharing best practices.

    Question 5. Will you and your embassy team actively engage with 
Colombia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Colombia?

    Answer. It is my understanding that the United States is not aware 
of any political prisoners in Colombia, or unjust targeting of 
individuals. If confirmed, I would certainly engage the Government in 
the event this becomes an issue.

    Question 6. Will you engage with Colombia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with Colombia on matters 
of human rights, civil rights, and governance as part of our bilateral 
mission. Colombia is a close friend of the United States, and our 
countries have long enjoyed outstanding cooperation on a range of 
issues. As a close partner, I will work with the Colombian Government 
to continue to encourage improvements on matters of human rights, civil 
rights, and governance through a variety of approaches, including 
programming, regular diplomatic engagement, and high-level dialogues 
with the Colombian Government. I look forward to continuing and 
expanding upon our close collaboration on these issues in multiple 
fora.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Colombia?

    Answer. No. We have no financial interests in Colombia.

    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? What steps will you take to ensure each of the 
supervisors at Post are fostering an environment that is diverse and 
inclusive?

    Answer. Mentoring and preparing the succeeding generations for 
leadership in the Department must be one of the primary 
responsibilities of the Chief of Mission. No one has greater influence 
in helping shape the purposes, values, and attitudes of the Department 
and the Foreign Service than the leadership in our missions. Mentoring 
should be an interactive engagement with rising employees, 
understanding them as individuals. I have taken this responsibility as 
a primary purpose of my senior years in the Foreign Service, seeking 
out officers to mentor, advise, and for whom I advocate in their 
careers. Senior officers must dedicate a stated percentage of their 
work year in such activities, publicize this to their missions, and 
actively engage staff. Moreover, the work requirements of senior 
officers and supervisors at Post similarly have to include specific 
reference to performance requirements in mentoring and advocacy for 
employees representing diverse and underrepresented groups in the 
Service.
    It is important to impart to senior officers and supervisors the 
values that underlie the role of mentor and adviser for employees, 
especially those representing the diversity of our country. 
Furthermore, establishing an example of such leadership is key to 
encouraging this trait in senior staff. Finally, the Chief of Mission 
has to establish standards of conduct and performance, both in formal 
requirements and by example, which lead the mission to undertake 
diversity mentoring and to foster an environment of openness, equality, 
and diversity.
Support for Peace in Columbia
    Unwavering bipartisan support, across successive administrations, 
has been the cornerstone of U.S. policy to Colombia, first for Plan 
Colombia and today, for the Peace Colombia Initiative. While Plan 
Colombia helped Colombia achieve its peace accord, building a lasting 
peace requires enduring commitments. For this reason, I am deeply 
concerned about the 30 percent cut of $120 million proposed by the 
Trump administration for FY 2019.
    Question 11. If confirmed, will you continue to publicly express 
unwavering U.S. support for peace in Colombia, and will you commit to 
being a forceful advocate for robust funding for Colombia?

    Answer. U.S. assistance is vital to U.S. and Colombian bilateral 
efforts to combat narcotics trafficking and establish lasting peace in 
Colombia. U.S. assistance constitutes only a fraction of Colombia's own 
investment in its peace. Between FY 2000 and FY 2017, U.S. assistance 
totaled roughly $10 billion to support Plan Colombia and its follow-on 
programs. At the same time, Colombia invested billions more, achieving 
notable progress in combating drug trafficking and terrorist activities 
and reestablishing government control over much of its territory.
    Today, Colombia remains one of our strongest partners in the 
region, and we continue to support sustainable peace in Colombia. The 
FY 2019 request provides important and necessary funds to advance U.S. 
interests in Colombia, particularly on peace accord implementation and 
counternarcotics. If confirmed, I will maximize the embassy's use of 
available resources, advocate for continued funding, and express 
unwavering U.S. support for peace in Colombia.
Human Rights Abuses and War Crimes
    In all of my meetings with President Santos, I have repeatedly 
raised the need for Colombian Government to ensure accountability for 
human rights abuses and war crimes committed by the FARC and by state 
actors. The Colombian Government has made important steps in setting up 
its transitional justice mechanism, but 15 months after the accord was 
ratified, no one has been held accountable. Additionally, I am 
concerned that the Colombian Government is not using the 
internationally recognized definition of ``command responsibility'' to 
hold accountable FARC commanders and Colombian generals.
    Question 12. What is your assessment of this issue, and if 
confirmed, will you commit to raise U.S. concerns about human rights 
accountability with the Colombian Government?

    Answer. Ensuring justice and accountability for those responsible 
for conflict-related human rights violations and abuses, including both 
state and non-state actors, is essential to secure a just and lasting 
peace in Colombia. Colombia has made important advances to stand up its 
transitional justice system, including: passing legislation to create 
and implement the Special Jurisdiction for Peace (SJP), designed to 
recognize truth and responsibility and administer justice for conflict-
related crimes constituting serious violations of human rights or 
international humanitarian law; appointing more than 80 magistrates and 
other officials to oversee the SJP and other transitional justice 
bodies; and passing decrees to establish and appoint directors for the 
truth commission and special unit to search for the disappeared.
    While Colombia works to implement its ambitious transitional 
justice framework, the Attorney General's Office has continued to 
investigate and prosecute those responsible for human rights violations 
and abuses committed during the armed conflict. The U.S. Government 
continues to reiterate the importance of prompt and full implementation 
of the SJP and is actively monitoring its implementation, including 
with respect to command responsibility. The Colombian Government has 
publicly stated the SJP will abide by ``international standards.'' I 
commit, if confirmed, to raise U.S. concerns about human rights and 
accountability with the Colombian Government, and reiterate the 
importance of bringing to justice perpetrators of human rights 
violations on all sides.
The Illegal Drug Trade
    The illegal drug trade is a shared problem. While the U.S. always 
needs to do more to address demand for illicit drugs in our country, I 
am very concerned about the sharp increase in illicit coca cultivation 
in recent years. I know the Colombian Government is taking 
unprecedented steps to address this issue and has made important 
progress, but this issue remains a concern. It is even more concerning 
that in the face of these challenges, the Trump administration is 
proposing a 30 percent cut of $120 million for U.S. foreign assistance 
to Colombia, which includes counternarcotics funding.
    Question 13. What steps will you take to prioritize this issue in 
the bilateral relationship, and what additional steps can the U.S. and 
Colombia take to more effectively address the illegal drug trade, 
including related challenges of illicit finance?

    Answer. The Trump administration remains deeply concerned about the 
explosion in Colombian coca cultivation and cocaine production. At the 
U.S.-Colombia High-Level Dialogue (HLD) on March 1, the United States 
and Colombia agreed to expand counternarcotics cooperation over the 
next five years, with the shared goal of reducing Colombia's estimated 
cocaine production and coca cultivation to 50 percent of current levels 
by 2023. If confirmed, I will prioritize work with our Colombian 
counterparts to ensure continued progress in reducing coca cultivation 
and the production of cocaine as agreed to at the HLD.
    Colombia's implementation of the peace accord and current 
counternarcotics strategy can have a lasting impact in addressing the 
illegal drug trade. This is possible if the Government of Colombia 
provides adequate resources for counternarcotics operations and 
alternative development, implements enhanced eradication efforts in 
areas of high coca growth, and increases the effectiveness of 
interdiction operations, including expanding riverine and regional 
maritime operations as well as operations to investigate and dismantle 
narcotrafficking organizations. If confirmed, I would also encourage 
the Colombian Government to continue to use extradition as an essential 
tool against narcotraffickers. It is imperative the Colombian 
Government also hold the FARC accountable for its commitments to 
provide critical information about the cocaine trade and the illicit 
assets the FARC obtained during its years of terrorist activities as 
agreed to under point four of the peace accord.



                               __________


     Response to an Additional Question for the Record Submitted to
               Joseph Macmanus by Senator Jeanne Shaheen

    Question 1. The state of New Hampshire is experiencing an epidemic 
of opioid-related deaths. The State Department's 2017 International 
Narcotics Control Strategy report assessed that Colombia remains the 
second-largest supplier of heroin to the United States. What is your 
assessment of U.S.--Colombia counterdrug cooperation, and how can it be 
improved?

    Answer. While United States Government estimates indicate Colombia 
is the number two supplier of heroin to the United States, over 90 
percent of heroin consumed in the United States originates in Mexico. 
Addressing the opioid crisis is the Department of State's highest drug-
control priority. Irrespective of the amount, illicit heroin 
trafficking from Colombia in the United States damages lives and 
supports criminal activities and organizations throughout the region. 
The Department will continue to rely on our interagency partners to 
monitor Colombian heroin production and work to reduce its role in the 
ongoing opioid crisis in the United States.
    On cooperation, U.S. counternarcotics foreign assistance to 
Colombia is dedicated to reversing the dramatic increase in coca 
cultivation and cocaine production in Colombia since 2013.
    The Governments of Colombia and the United States have collaborated 
effectively to confront narcotics trafficking and other transnational 
crimes for nearly two decades. As a result, violent crime indices such 
as homicides and kidnappings have dropped markedly in recent years. Our 
shared success in security and counternarcotics helped bring the FARC, 
which is extensively involved in the drug trade, to the negotiating 
table and helped make the conclusion of a final peace accord possible.
    On March 1, 2018, senior officials from the United States and 
Colombian Governments met for a High Level Strategic Dialogue to 
discuss our extensive bilateral interests, including counternarcotics 
cooperation. During that meeting, the United States and Colombia came 
to agreement to reduce Colombia's cocaine production and coca 
cultivation to 50 percent of current levels by 2023. If confirmed, I 
would continue to coordinate closely with Colombian authorities to 
support their efforts to reach these goals and address the manufacture 
of all illicit drugs.



                               __________


     Responses to Additional Questions for the Record Submitted to
                  Joseph Macmanus by Senator Tim Kaine

    Question 1. As discussed at your nominations hearing, I am 
extremely supportive of Colombia's bid to join the Organization for 
Economic Co-operation and Development (OECD). Could you please provide 
specifics on what Colombia needs to do to meet its accession benchmarks 
and how the State Department, Embassy in Bogota, and Congress could 
help to support their membership?

    Answer. Colombia's bid to join the market-based democracies of the 
Organization for Economic Co-operation and Development (OECD) is 
indicative of how far the country has come. Colombia has progressed 
through the accession process, having passed 20 of 23 committees. The 
remaining committees to pass are the Employment, Labour and Social 
Affairs (ELSAC) committee, the Trade committee, and the Economic and 
Development Review committee (EDRC). The EDRC is a ``capstone'' review 
committee that will consider Colombia once it has passed all other 
committees.
    I understand that the entire U.S. interagency continues to guide 
Colombia as it completes and implements the technical requirements to 
qualify for membership in the OECD. Embassy Bogota has been working 
closely with Colombian officials to best utilize the $2 million in 
Department of Labor funds pledged for additional technical assistance 
to meet requirements for accession (these funds were contingent on 
Colombia providing equivalent matching funds).
    The four major areas identified for improvement in the ELSAC review 
include labor informality and subcontracting, labor law enforcement, 
collective bargaining, and violence against unionists. Regarding the 
Trade committee, the State Department continues to work with USTR and 
Colombian officials to ensure there is clarity and coordination among 
the parties regarding the outstanding issues Colombia is working to 
address, including truck scrappage, pharmaceutical, and copyright laws 
and policies. If confirmed, I would continue to work closely with 
Colombia to meet its accession benchmarks.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Judge Edward Prado by Senator Marco Rubio

    Question 1. The United States Government has been concerned about 
illicit activities taking place in the Tri-Border Area (TBA), where 
borders of Argentina, Brazil, and Paraguay meet. If confirmed, how 
would you tackle the criminality challenges presented in this area, 
including money laundering, arms trafficking, and trade in counterfeit 
and contraband goods?

    Answer. If confirmed, I would make cooperation on the fights 
against terrorism and drug trafficking, and the security of our people, 
including cybersecurity, my priorities. The United States and Argentina 
have a mutual interest in combatting the trafficking of illegal drugs 
and weapons and safeguarding the security of our citizens. It is my 
understanding that the U.S. Government provides training and technical 
assistance for interagency personnel at Argentine-established 
Intelligence Fusion Centers nationwide and for a recently launched 
Northwest Border Task Force focused on Transnational Organized Crime 
and Counternarcotics. The U.S. and Argentina share concerns regarding 
cybersecurity, including critical infrastructure protection, 
international security in cyberspace, and cybercrime. U.S. Government 
cyber experts established the Argentina-U.S. Cyber Policy Working Group 
to address these concerns. The U.S. Embassy has a Resident Legal 
Advisor to assist Argentine law enforcement with investigations, case 
building and advocacy, and prosecutions of complex crimes such as drug 
trafficking, money laundering, and other forms of illicit finance.

    Question 2. The National Endowment for Democracy recently released 
a report titled, ``Sharp Power: Rising Authoritarian Influence,'' which 
detailed Chinese and Russian influence in four young democracies in 
Latin America and Central Europe, one of which was Argentina. The 
report examines Chinese influence over local media and academia. Is 
this an issue you are focused on? What specifically, if confirmed, 
would you do to counter Chinese Government influence in Argentina and 
throughout the region?

    Answer. As the Secretary noted during his recent trip to the 
region, China is now the largest trading partner of Chile, Brazil, and 
Peru. While this trade has brought benefits, some unfair trading 
practices have also harmed these countries' manufacturing sectors, 
generating unemployment and lowering wages for workers. If confirmed, I 
will work tirelessly to demonstrate that the U.S. model for investment 
and trade--based on mutually beneficial goals that help both sides 
grow, develop, and become more prosperous--is the preferred trading and 
investment model.



                               __________


     Responses to Additional Questions for the Record Submitted to
             Judge Edward Prado by Senator Robert Menendez

AMIA
    For almost 25 years, the suspects in the AMIA massacre in Buenos 
Aires have lived openly in Iran, where some of held senior government 
positions.
    Question 1. How will you support Argentina's efforts to pressure 
Tehran to turn over the bombing suspects, and to enforce the Interpol 
Red Notices seeking their arrests?

    Answer. If confirmed, I would make clear that the United States 
will always stand with the victims of the Asociaci"n Mutual Israelita 
Argentina (AMIA) bombing, with their families, and with the Argentine 
people and their government as they work with the international 
community to see justice done in the case of the July 18, 1994 attack. 
The AMIA bombing was a brutal attack on Argentina's Jewish community, 
on Buenos Aires, and on all Argentines, killing 85 people and injuring 
hundreds more. We must always remember that it came 28 months after the 
March 17, 1992 bombing of the Israeli embassy in Buenos Aires, which 
killed 29 people and injured hundreds more. If confirmed, I would also 
make clear that the Iranian Government continues to bear a solemn 
responsibility to cooperate fully with Argentine authorities as they 
work to bring the perpetrators to justice. Iran's involvement in the 
Western Hemisphere remains a matter of concern, and the administration 
continues to counter its malign activities in the region.

    Question 2. The unsolved murder of prosecutor Nisman poses a 
challenge to public confidence in the rule of law in Argentina. 
President Mauricio Macri's election raised expectations for a 
resolution to the case. Why is this murder so hard to solve, and is 
there any role for the United States, either in applying diplomatic 
pressure to demonstrate our interest in the case, or offering 
investigative, including forensic, support?

    Answer. The 2015 death of Special Prosecutor Alberto Nisman, who 
dedicated the last decade of his life to the pursuit of those 
responsible for an appalling act of terrorism in our hemisphere, was 
deeply troubling. If confirmed, I would continue the U.S. call for a 
complete, transparent, and impartial investigation into Mr. Nisman's 
death and offer U.S. assistance on the investigation to Argentine 
authorities. Under President Mauricio Macri, Argentina's Government and 
its courts have renewed focus on the investigations into the bombing 
and the death of Mr. Nisman and they have since made progress in the 
investigation. A Gendarmerie report issued September 20, 2017 concluded 
Mr. Nisman was murdered, and a federal judge in December 2017 reached 
the same conclusion. If confirmed, I would continue to offer U.S. 
support to Argentina and stress our interest in assisting its efforts 
to find justice.

    Question 3. Under the Macri administration, U.S. human rights 
groups, including Human Rights Watch, have criticized Argentina on 
several occasions on issues such as the pre-trial detention of 
indigenous rights activist Milagro Sala; the pre-trial detention of 
former senior government officials; and alleged heavy-handed policing. 
What will you do to evaluate Argentina's human rights climate, and 
persuade the Government to respect the rights of criminal defendants, 
protestors and individuals pursued by law enforcement personnel?

    Answer. The United States and Argentina share a commitment to 
democratic governance, transparency, and human rights that make us 
natural allies in addressing regional and global challenges. We 
collaborate closely in multilateral organizations and initiatives, 
including the United Nations Human Rights Council, the Inter-American 
Human Rights System, the Open Government Partnership, the Global Anti-
Corruption Coalition, and the Global Equality Fund. As the Chair of the 
Prado committee in 1993 and just recently as Chair Emeritus of a new 
committee appointed by the Chief Justice, I had the responsibility of 
overseeing recommendations on how to improve the quality of 
representation guaranteed by our Constitution. I have always been 
concerned with the rights of individuals in a free society. If 
confirmed, I will continue my support of these human rights and seek to 
strengthen our bilateral cooperation and encourage continued Argentine 
leadership on democracy and human rights in the region, particularly in 
Venezuela and Cuba.
    Argentine President Mauricio Macri has made human rights a 
priority, and in December 2017 he unveiled a new national human rights 
strategy focused on five thematic areas that include non-
discrimination; universal access to human rights; public security; 
dictatorship-era memory, truth, and justice initiatives; and cultural 
commitment to human rights. If confirmed, I will work with the 
Argentine Government to encourage robust implementation of the national 
human rights strategy to ensure Argentine authorities address the 
country's principal human rights issues.

    Question 4. In Latin America, the United States has continued to 
defend human rights and democratic norms, including in Cuba and 
Venezuela, and called upon our Latin American partners to do the same. 
Outside the region, however, the U.S. commitment to these principles is 
less clear. How will you press Argentina to hold Venezuelan President 
Nicol s Maduro accountable for abusing civil liberties and democratic 
institutions when the United States is largely silent regarding similar 
misconduct by leaders such as Recep Tayyip Erdogan, Rodrigo Duterte, 
Abdel Fattah el-Sisi and Vladimir Putin?

    Answer. The Argentine Government has spoken out forcefully about 
the need for the Venezuelan regime to permit the citizens of Venezuela 
to recover their liberties through free and fair elections. Argentine 
authorities have worked within the Organization of American States; the 
Common Market of the South (MERCOSUR) trading bloc; and through the 
Lima Group, a group of like-minded South American countries, to support 
the efforts of the Venezuelan people to restore democracy in their 
country. President Mauricio Macri has long been a sharp critic of the 
Venezuelan Government and has taken concrete steps to increase 
diplomatic and financial pressure on the Venezuelan regime. If 
confirmed, I will work closely with the Argentine Government as 
Argentina, the United States, and the vast majority of governments in 
the hemisphere work together to help the Venezuelans restore the 
democratic rights currently being denied them by their government.

    Question 5. In February, Secretary Tillerson said the Monroe 
Doctrine had ``clearly been a success'' that is ``as relevant today as 
it was the day it was written.'' What is your view of the Monroe 
Doctrine?

    Answer. As the Secretary said, the Monroe Doctrine allowed for the 
development of the shared values of democracy and human rights for the 
people of the hemisphere. We work together as partners with our 
neighbors in this hemisphere to advance shared priorities including 
security, economic and energy prosperity, and democratic governance.

    Question 6. How should the United States address its previous 
interventions in Latin America, including support for dictatorships in 
South America, including in Argentina during the ``Dirty War''?

    Answer. As a matter of policy, the United States supports 
accountability for gross human rights violations, and to this end 
Argentina's continuing efforts with memory, truth, and justice 
commissions. Since 2016, the United States has embarked on a 
comprehensive effort to identify additional records related to human 
rights abuses committed under Argentina's dictatorship. The 
declassification project represents an historic effort by U.S. 
Government agencies and departments to search, identify, review for 
public access, and provide records that shed light on human rights 
abuses in Argentina between 1975 and 1984. Moreover, the United States 
provided help to many of those who defended and sought to advance 
greater respect for human rights in Argentina during those years. The 
United States continues to defend and advance democracy and human 
rights throughout the world. As a federal judge, I have always been 
sensitive that the rights of individuals guaranteed by a democratic 
government are recognized and enforced. If confirmed, I will commit to 
speak out whenever universal human rights are denied or threatened.

    Question 7. You would arrive in Argentina arguably at the zenith of 
its regional and global influence, as it presides over the G-20. How 
would you assure that Argentina is a productive steward of the global 
agenda on critical issues such as climate change and free trade 
promotion?

    Answer. Argentina's G-20 presidency is an extraordinary opportunity 
for the country to show global leadership and promote the Government's 
ongoing economic reforms globally. If confirmed, I will continue our 
Embassy's efforts to work closely with Argentina to coordinate on our 
shared objectives in the G-20.

    Question 8. What advice should the United States offer to help 
Argentina strengthen its investment climate, attract U.S. firms and 
replicate the U.S. shale revolution?

    Answer. Argentina is estimated to have the world's second largest 
shale gas resources and fourth largest shale oil resources. Most of 
this unconventional resource potential is located in the Vaca Muerta 
formation in Patagonia (mostly in Neuquen Province), which many have 
compared to the prolific Eagle Ford and Bakken plays in the United 
States. U.S. companies, including ExxonMobil and Chevron, have begun to 
explore small, pilot contracts in Vaca Muerta. The Department of 
State's Bureau of Energy Resources continues to provide technical and 
regulatory expertise to Argentine counterparts at both the provincial 
and federal level. If confirmed, I would continue to foster this 
collaborative partnership, which can generate opportunities for U.S. 
oil and gas firms and help improve hemispheric energy security.

    Question 9. Is there any contradiction between Argentina's 
ambitious Paris agreement commitments and its investments in the Vaca 
Muerta shale play?

    Answer. Argentina's long-term development plans involve balancing 
development of its Vaca Muerta shale oil and gas resources with new 
Paris Agreement-compatible infrastructure projects, such as renewable 
energy generation. Climate change mitigation and adaptation remain 
priorities for the Argentine Government, which has taken a whole of 
government approach to the issue via President Macri's 13-ministry 
``Climate Change Cabinet.''

    Question 10.  Since the beginning of 2017, support for the United 
States in Argentina has diminished markedly. Polls by Gallup show only 
a 13 percent approval rating for the U.S. Government. So far, shifting 
public opinion has not appeared to erode the diplomatic relationship, 
but it is not clear that is sustainable. How would you address rising 
public disapproval of the United States?

    Answer. Educational exchange programs represent one area of robust 
cooperation, with more than 2,000 Argentine students studying in the 
United States and more than 4,500 U.S. students in Argentina during the 
2013-2014 academic year. This is one of the most fundamental areas for 
U.S. direct engagement with Argentines: common understanding based on 
personal contacts; people-to-people connections based on common 
academic, professional, and cultural interests. If confirmed, I will 
ensure the Embassy works with the Argentine Government and private 
sector to strengthen these education exchange programs and align them 
with Argentina's work force development needs. I will continue to 
expand and strengthen these partnerships, which ultimately improve not 
only understanding between the United States and Argentina, but also 
help strengthen the economies of both nations. Additionally, I have 
personally worked closely with the judicial branch of Argentina and 
have participated in numerous workshops and seminars throughout the 
years. If confirmed, it is my intent to continue working closely with 
the lawyers and judges of Argentina to help improve the judicial 
system.

    Question 11.  President Macri came into office promising to 
rebalance Argentina's international relationships, by distancing 
Argentina from China and Russia and strengthening ties with its 
traditional allies, including the United States. Instead, Argentina's 
relationship with China has remained tightknit. Given President Macri's 
preference for doing business with the United States, what can we do to 
compete with Chinese influence in Argentina? Is the U.S. Government 
providing competitive financing to meet Argentina's infrastructure 
needs and generate opportunities for U.S. companies?

    Answer. The United States remains, by a large margin, the number 
one source of foreign direct investment in Argentina and significant 
investment opportunities exist for U.S. companies in Argentina's 
infrastructure, energy, health, agriculture, information technology, 
and mining sectors. Historically, challenges to greater investment for 
U.S. companies in Argentina have included regulatory coherence, high 
financing costs, and weak intellectual property rights protections. 
President Macri has declared Argentina to be open for business and has 
welcomed foreign trade and investment. The United States continues to 
work closely with the Argentine Government to improve the business 
climate, and, if confirmed, I would continue to advocate for reforms 
that will maintain a level playing field for U.S. companies doing 
business in Argentina.

    Question 12. Are we providing adequate support for Argentina's law 
enforcement institutions and armed forces as the country increasingly 
grapples with drug transshipment?

    Answer. The Bureau of International Narcotics and Law Enforcement 
Affairs (INL) conducts a $2.2 million Argentina program inclusive of 
all activities through Fiscal Year 2019. INL funds capacity building to 
the Argentine Government's Fusion Centers and funds the Drug 
Enforcement Administration to train and mentor Argentine law 
enforcement and justice officials to support the counter-narcotics 
focused Northwest Border Task Force, which has already demonstrated 
successes combatting transnational organized crime and interdicting 
narcotics. Treasury's Office of Technical Assistance is helping 
Argentina's Financial Information Unit improve its capacity to 
supervise financial institutions and detect money laundering. If 
confirmed, I would continue to encourage this relationship of strong 
partnership and collaboration to achieve our mutual security and law 
enforcement goals. As a former United States Attorney with drug-
trafficking prosecution experience, I intend to work closely with the 
Regional Resident Legal Advisor to assist in helping Argentine law 
enforcement and prosecutors investigate and pursue their cases.

    Question 13.  As in many parts of the world, the U.S. Embassy in 
Buenos Aires is sometimes perceived as part of Argentine elite culture, 
disengaged from the urban poor and rural populations, and disinterested 
in the lives of the one-in-three Argentines who live in poverty. This 
stereotype is unfair, but not entirely so. How would you ensure that 
the United States is engaging diverse communities in Argentina, and 
that the embassy's political and economic analysis reflects many 
viewpoints, including those critical of the Macri Government and of the 
United States?

    Answer. As a Latino from a disadvantaged community, I overcame many 
challenges in becoming the first in my family to attend college. I 
believe my diverse life experiences will help me relate to and engage 
with the urban poor and rural populations of Argentina. For many years, 
the United States Embassy in Buenos Aires has made outreach to 
Argentina's 23 provinces a priority. Officers from across the Mission, 
including from the economic, political, public diplomacy, and consular 
sections, engage with counterparts throughout the country to listen to 
Argentina voices, and to promote U.S. policies and tell America's 
story. If confirmed, I would plan to participate personally in these 
efforts. They are among the best ways we have to engage diverse 
populations and to hear from Argentines with many different points of 
view. In addition, a network of 13 U.S.-Argentina Bi-national Centers 
(BNCs) located in 13 of Argentina's 23 provinces provide English 
language training and cultural programs to approximately 15,000 
students. Ten BNCs administer an English scholarship program to provide 
English teaching and learning to under-served student populations, 
creating a pipeline of students for future exchange programs and 
enhanced workforce readiness. If confirmed, I will ensure the United 
States continues these and other efforts to build closer people-to-
people ties and deepen our partnerships with the diverse people of the 
Western Hemisphere, including Argentina, to address common challenges.

     Responses to Additional Questions for the Record Submitted to
           Judgfe Edward Prado by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a former public defender and prosecutor, I appreciated 
first-hand the importance of people's rights and the importance of the 
rule of law in a democratic society. In these roles, I both enforced 
our nation's laws and protected human rights with the inherent dignity 
and respect of every person in mind.
    That appreciation has continued in my position as a United States 
Judge where I have dealt with issues involving human rights. From 
police brutality, to discrimination cases, to voter I.D. laws, I have 
always made it a policy to abide by the rule of law and see to it that 
all citizens' rights are protected. These rulings over the past 35 
years have had a positive effect on thousands of people's lives.

    Question 2. What are the most pressing human rights issues in 
Argentina? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Argentina? What do 
you hope to accomplish through these actions?

    Answer. The United States and Argentina share a commitment to 
democratic governance, transparency, and human rights that make us 
natural allies in addressing regional and global challenges. We 
collaborate closely in multilateral organizations and initiatives, 
including the United Nations Human Rights Council, the Inter-American 
Human Rights System, the Open Government Partnership, the Global Anti-
Corruption Coalition, and the Global Equality Fund. If confirmed, I 
will seek to strengthen our bilateral cooperation and encourage 
continued Argentine leadership on democracy and human rights in the 
region, particularly in Venezuela and Cuba.
    The most significant human rights problems in Argentina as outlined 
in the most recent State Department Human Rights Report include reports 
of official corruption and of torture by federal and provincial police; 
harsh and life-threatening prison conditions; interference in judicial 
independence; child labor and forced labor, despite concerted Argentine 
Government efforts to combat it; and gender-based violence. Argentine 
President Mauricio Macri has made human rights a priority for his 
administration, and in December 2017, he unveiled a new national human 
rights strategy focused on five thematic areas that include non-
discrimination; universal access to human rights; public security; 
dictatorship-era memory, truth, and justice initiatives; and cultural 
commitment to human rights. If confirmed, I will work with the 
Argentine Government to encourage robust implementation of the national 
human rights strategy to ensure Argentine authorities address the 
country's principal human rights issues.
    Recognizing its own challenges, Argentina has been a leader in 
working to address child labor, and hosted the successful IV Global 
Conference on the Sustained Eradication of Child Labor in November 
2017, where Department of Labor Under Secretary for International 
Affairs Martha Newton advanced U.S. multilateral and bilateral labor 
objectives. She underscored the U.S. commitment to combating child 
labor, forced labor, and human trafficking, announcing a conference 
pledge of $253 million, including FY 2017 funding from the Department 
of Labor and Department of State for global programs. If confirmed, I 
intend to maintain cooperation with Argentina during its G20 presidency 
in 2018 and support President Macri's initiatives aimed at workplace-
based training for Argentine youth.

    Question 3. f confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Argentina in 
advancing human rights, civil society and democracy in general?

    Answer. The administration of President Mauricio Macri has made 
confronting corruption a top priority, and Argentine law provides for 
criminal penalties for corruption by public officials. Nonetheless, 
multiple reports allege that executive, legislative, and judicial 
officials have engaged in corrupt practices with impunity, suggesting a 
failure to implement the law effectively. Weak institutions and an 
ineffective and politicized judicial system have undermined systematic 
attempts to curb corruption. If confirmed, I would work to encourage 
transparency and strong and stable government institutions in 
Argentina.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Argentina?

    Answer. Yes. If confirmed, I commit to sustained engagement with a 
broad spectrum of society in Argentina, including human rights 
activists, civil society, religious groups, and the organizations that 
represent them.

    Question 5. Will you and your embassy team actively engage with 
Argentina to address cases of key political prisoners or persons 
otherwise unjustly targeted by Argentina?

    Answer. There are no reports of political prisoners or detainees in 
Argentina. If I am confirmed, my Embassy team and I would actively 
engage with the Government of Argentina should such issues arise.

    Question 6. Will you engage with Argentina on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage with the Argentine Government 
on matters of human rights, civil rights, and governance as part of our 
bilateral mission.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Argentina?

    Answer. Neither I nor any member of my family have financial 
interests in Argentina or any other foreign country.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a minority myself, I am very sensitive to the fact that 
minorities are underrepresented in the State Department and will do all 
I can to increase representation and involvement from people of all 
backgrounds. Coming from a poor Latino neighborhood where most students 
did not go on to college and being the first in my family to attend 
college, I have worked with student groups that aim to help encourage 
minority students to attend and stay in college. I believe I serve as a 
role model for many Latino students and as an example of what can be 
accomplished if you work hard.
    Furthermore, I have actively demonstrated my commitment to 
promoting diversity in the hiring and mentorship of my almost 80 law 
clerks during my 35 years on the bench. My clerks come from all 
different backgrounds and experiences. I have mentored them in my 
chambers and throughout their legal careers. I hope to continue my 
mentorship role in supporting the development of my staff, particularly 
those from underrepresented groups.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I intend to work closely with staff to insure that we are 
helping new and young State Department employees gain the experience 
necessary to have a successful career within the State Department. I 
intend to play a direct role in mentoring these individuals and helping 
them in any way I can to go on to become leaders in the Foreign 
Service. I also plan on being visible and accessible to all my staff in 
the embassy. I believe that by playing this active role and by leading 
by example, the supervisors under my direction will do the same in our 
pursuit of a common mission.

    Question 12. China in Argentina/Latin America: In the past 18 
months, U.S. public standing in Argentina has plummeted and in a recent 
poll, only 13 percent of Argentines had a favorable view of the United 
States. This dramatic development comes at a time when China is 
increasing its role in Latin America. China's trade with Argentina 
surpasses that of the U.S.; China provided $20 billion in 
infrastructure financing in 2014; China is providing security funding 
to facilitate the purchase of Chinese equipment; and China's Confucius 
Institute are seeking to manipulate curricula and public opinion in 
Argentine universities. What is your assessment of China's role in 
Argentina?

    Answer. China has a longstanding trade relationship with Argentina 
and historically has alternated with the United States as being 
Argentina's second largest goods trading partner after Brazil. The 
United States, however, engages in a larger services trade with 
Argentina, and is by far the number one source of foreign direct 
investment in Argentina. Trade between Argentina and China has 
historically centered on exports of agricultural and mineral commodity 
products to China in exchange for Argentine imports of higher value 
chain products. President Macri has declared Argentina open for 
business and has welcomed foreign trade and investment from the United 
States, Europe, China, and others.

    Question 13. If confirmed, will you make this issue a priority?

    Answer. If confirmed, I would work to demonstrate that the U.S. 
model for investment and trade is the preferred trading and investment 
model, as it is based on mutually beneficial goals that help both 
partners grow, develop, and become more prosperous.

    Question 14. What steps will you take to address Chinese influence 
in Argentina?

    Answer. If confirmed, I would continue to advocate for reforms that 
would maintain a level playing field for U.S. companies doing business 
in Argentina. I will advocate for investments and trade that meet high 
standards in terms of transparency, adherence to anti-corruption 
standards, debt sustainability, labor rights, environmental best 
practices, and the needs and concerns of local communities.

    Question 15. Security Assistance Budget Cuts/U.S. Influence: The 
U.S. provides very little foreign assistance to Argentina, but the 
little we do goes a long way and offers us significant influence. One 
key budget is our international counternarcotics and law enforcement 
budget, which President Trump has proposed to cut--again. These funds 
facilitate strategic cooperation on a range of issues, including 
combatting illicit finance and money laundering. In the current budget 
climate, what will you do to ensure continued funding for Argentina?

    Answer. The United States and Argentina have a mutual interest in 
combatting the trafficking of illegal drugs and safeguarding the 
security of our citizens. If confirmed, I would place among my top 
priorities cooperation in the fight against terrorism and drug 
trafficking, and the promotion of the security of the American people, 
including their cybersecurity. I would also advocate for the necessary 
resources to ensure our cooperation with Argentina continues.

    Question 16. At a time when the Chinese are offering security 
assistance to Argentina, what will you do to maintain our influence?

    Answer. Fundamentally, our influence derives from our values. 
Argentina and the United States share democratic traditions and values, 
and how we apply them in providing services to our citizens extends to 
how we police our streets and defend our national interests. When the 
Argentine Navy lost a submarine, the ARA San Juan, in the South 
Atlantic, last November, the United States Government, and the United 
States Navy, arrived first on the scene to lend support. When the 
Argentine Ministry of Security made combatting transnational organized 
crime and interdicting narcotics in northwestern Argentina a priority, 
our embassy in Buenos Aires worked together with the Drug Enforcement 
Administration (DEA) and other U.S. law enforcement agencies to help 
the Argentines develop a l counter-narcotics focused Northwest Border 
Task Force that is becoming a model for similar centers elsewhere in 
Argentina.
    The Bureau of International Narcotics and Law Enforcement Affairs 
(INL) now conducts a $2.2 million program, inclusive of all activities 
through Fiscal Year 2019, that funds capacity building and DEA efforts 
to train and mentor Argentine law enforcement and justice officials 
working to improve Argentine public security, and Northwest Border Task 
Force has already demonstrated successes combatting transnational 
organized crime and interdicting narcotics.
    The benefits Argentina derives from a close security and public 
safety relationship with the United States far exceed those available 
to it elsewhere; that is why the Macri administration prefers 
cooperation with the United States over other foreign partners, such as 
Russia and China, and that is why our security cooperation has 
flourished in the two years since Macri came into office.
    Our INL Argentina program is a unique model of low cost, high 
impact foreign assistance in which the Argentine Government shares in 
the cost of all INL trainings, thus maximizing our very modest 
investment in? shared security priorities of combatting corruption and 
transnational crime including counter-narcotics. Programs such as this 
one show that the U.S. model for security cooperation--based on shared 
values and mutually beneficial goals that help both sides--makes sense 
for both countries. Treasury's Office of Technical Assistance is 
helping Argentina's Financial Information Unit improve its capacity to 
supervise financial institutions and detect money laundering. If 
confirmed, I would encourage this relationship of strong partnership 
and collaboration to achieve our mutual security and law enforcement 
goals.

    Question 17. Israeli Embassy and AMIA Terrorist Attacks: In my last 
meeting with President Macri, I raised the need for Argentina and the 
international community to make more progress in holding accountable 
the perpetrators of the 1994 bombing of AMIA Jewish community center. 
This certainly includes the 6 Iranian officials that were previously 
subject to Interpol Red Notices. There has certainly been progress into 
the murder of Alberto Nisman, the prosecutor who was handling the AMIA 
case. But, there has been limited progress on the actual attacks. What 
support will you provide for the investigations?

    Answer. If confirmed, I will make clear that the United States 
stands with the victims of the Asociaci"n Mutual Israelita Argentina 
(AMIA) bombing, with their families, and with the Argentine people and 
their government as they work with the international community to see 
justice done in the case of the July 18, 1994 attack. The AMIA bombing 
was a brutal attack on Argentina's Jewish community, on Buenos Aires, 
and on all Argentines, killing 85 people and injuring hundreds more. 
This attack came 28 months after the March 17, 1992 bombing of the 
Israeli embassy in Buenos Aires that killed 29 people and injured 
hundreds more. If confirmed, I would also make clear that the Iranian 
Government continues to bear a solemn responsibility to cooperate fully 
with Argentine authorities as they work to bring the perpetrators to 
justice.

    Question 18. Will you continue to ensure that it is a priority in 
the U.S.-Argentina relationship?

    Answer. If confirmed, I would ensure that this is a priority and 
would offer U.S. support to Argentina and stress our interest in 
assisting their efforts to find justice. Given my experience as a 
judge, a participant in State Department rule of law programming, and 
my relationship with the legal community of Argentina, I look forward 
to working with the Government of Argentina to bring the perpetrators 
to justice.

                               __________


     Response to An Additional Question for the Record Submitted to
              Judge Edward Prado by Senator Jeanne Shaheen

    Question 1. For several years, a New Hampshire-based company, TIG 
Insurance, has sought unsuccessfully to resolve an outstanding dispute 
with Argentina over reinsurance contracts purchased by the Government 
from TIG in the 1980's. Although U.S. courts have sided with TIG in 
several cases, the Argentinian Government has yet to meaningfully 
engage with TIG on this issue, and thus this is the oldest unpaid claim 
against the Government of Argentina owed to a U.S. company. If 
confirmed, would you work with my office to see that this matter 
settled?

    Answer. I am aware of the ongoing legal dispute between TIG and the 
Government of Argentina. If confirmed, I can assure you that I will 
work tirelessly to support U.S. companies doing business in Argentina. 
Also, if confirmed, I look forward to working with your office on this 
matter.
                               __________


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake [presiding], Gardner, Young, 
Shaheen, Kaine, and Booker.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
committee will come to order.
    After some scheduling snafus and snow days that forced 
Senator Booker and me out with snowball fights on the lawn and 
everything else, but it was not very conducive to hearings and 
people being here on time. So we appreciate your indulgence in 
having this hearing postponed until now.
    But we are considering nominees to serve as the Assistant 
Secretary of State for the Bureau of International Narcotics 
and Law Enforcement Affairs and Ambassador to South Sudan, Mr. 
Hushek, who some time has passed since we have met, but I am 
grateful to you and Ms. Madison for taking the time to meet 
with me prior to this hearing.
    The Bureau of International Narcotics and Law Enforcement, 
or INL, is tasked with the responsibility for a number of 
important issues that lie at the heart of some of Congress' and 
the administration's priorities. These include helping foreign 
countries combat transnational crime, the illicit drug trade, 
human trafficking, and wildlife trafficking. I look forward to 
hearing how Ms. Madison will work to prioritize the many issues 
that, if confirmed, will fall under her purview and how 
Congress can work with INL to achieve its mission.
    We are also considering the nomination of a new Ambassador 
to South Sudan when the Government is, by all accounts, 
abdicating its responsibility to represent its people. There 
has never been a greater need for skilled diplomacy in the 
world's newest country. The committee stands eager to hear 
about the impact that the deteriorating manmade humanitarian 
crisis--what impact this has on U.S. interests in the region 
and what we might do to be able to turn the tide there. We are 
so grateful that we are going to have an Ambassador to South 
Sudan. It has been needed.
    I thank each of you for your time and sharing your 
expertise with us.
    With that, we will recognize Senator Booker for opening 
comments.

               STATEMENT OF HON. CORY A. BOOKER,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Chairman Flake.
    And I just want to reiterate I really appreciate your 
flexibility. I was just told that one of you were overseas and 
rearranged your schedule. It is a lot to go through, a lot of 
logistics. I just appreciate your patience with us and the many 
extraneous circumstances.
    I am grateful as always to Chairman Flake for his 
leadership and focus and what he brings to the table.
    The two before me--your years of service speak for 
themselves, your commitment to country, as well as to the 
larger cause of humanity. Should you be confirmed, you will 
both arrive at these positions in challenging and very 
difficult times.
    Ms. Madison, the bureau you will lead, if confirmed, will 
experience savage budget cuts, about 40 percent, if the 
President's budget is adopted. It is something that I think is 
a cause for concern. The budget comes at a time when heroin and 
cocaine use is increasing, along with a number of heroin-
related deaths in recent years. This is a real crisis being 
felt in communities all across our country, including in New 
Jersey. There are global supply chains and markets for these 
illicit substances that demand robust multilateral cooperation 
as well as enforcement that I believe will be forfeited for 
more punitive measures against individuals as opposed to making 
recovery difficult for consumers and investing in the kind of 
things that really make a difference. Your strategies, your 
wisdom, and your insight is really essential to help us to 
advance success at a time that frankly I am just frustrated 
that we are not making more progress.
    Mr. Hushek, if confirmed, you are literally going into a 
war zone, and I am concerned about your safety, the safety of 
our personnel in such hardship posts. My concern is compounded 
actually by not only the deteriorating effects in South Sudan 
but I just feel that we have no articulated strategy to deal 
with this crisis. And more than that, I have to say I am very 
concerned about this administration's concern about this 
crisis. There is a moral outrage going on on planet earth at a 
scale and level of gravity that should anguish the souls of 
every American. But there is a lack of attention in this 
administration coming from the top. There are demeaning and 
degrading comments spewing from the White House that undermine 
the larger diplomatic efforts.
    South Sudan is at a point where all of us, regardless of 
country--this is a test of the moral will of humanity. And I 
just feel that you are going into a challenge that I believe 
you can make a profound difference.
    And so I just want to say as an American, as a Senator, but 
even more so as a human being that I pray for your success 
under these circumstances, and I am looking forward to hearing 
you maybe being able to articulate with more clarity what the 
administration's strategy is. Your job is one of the more 
singularly important ones for alleviating suffering on this 
planet and ending a nightmare that is unimaginable frankly for 
those who have not witnessed a broad scale famine and suffering 
like we are seeing in South Sudan. I am angry that my country 
who has led with light and generosity and love is not showing 
that in this case.
    So I want to thank you both again for being here. I am very 
much looking forward to having a conversation, and I will pass 
it back to our chairman.
    Senator Flake. Thank you, Senator Booker.
    We will now turn to our nominees, the first nominee, 
Kirsten Madison, Deputy Director of Foreign and Defense Policy 
Studies with the American Enterprise Institute. She is well 
known to this committee having served as Deputy Staff Director 
just a few years ago and as a professional staff member under 
the leadership of former Chairman Jesse Helms. She also has 
previous experience at State, the NSC, and the Coast Guard.
    Our second nominee is Thomas Hushek, career diplomat, who 
is serving as the Acting Assistant Secretary of State in the 
State Department's Bureau of Conflict and Stabilization 
Operations. He has served in eight countries overseas, 
including as Deputy Chief of Mission at the U.S. embassies of 
Tajikistan and Micronesia. Additionally, he has completed two 
tours in Afghanistan.
    With that, we will recognize Ms. Madison.

    STATEMENT OF KIRSTEN DAWN MADISON, OF FLORIDA, TO BE AN 
 ASSISTANT SECRETARY OF STATE, INTERNATIONAL NARCOTICS AND LAW 
                      ENFORCEMENT AFFAIRS

    Ms. Madison. Thank you, Mr. Chairman and members of the 
committee. Thank you, first of all, for the opportunity to 
testify as the nominee to be the Assistant Secretary of State 
for International Narcotics and Law Enforcement Affairs. I am 
deeply honored by the President's nomination and at the 
prospect of serving my country again if I am confirmed.
    Since we started dating in high school, my husband Matthew, 
who is here today, has been my biggest supporter, my most 
honest critic, my most avid cheerleader. It means a lot to know 
that he is here.
    To my family, my brothers, Jay and Erik----
    Senator Flake. Raise your hand, Matthew. Okay, right behind 
you.
    Ms. Madison [continuing]. The long-suffering husband.
    Two of my brothers, Jay and Erik, and my parents, Lynn and 
Kathryn Madison. My mother happened to have flown in from 
Portugal with me last night, so she is here. I know that I 
would not be sitting here without their support and 
encouragement.
    The INL team, led by the Assistant Secretary, is a critical 
player in tackling some of the most challenging issues 
confronting our nation, including the ongoing opioid crisis and 
the efforts of criminal networks around the world to optimize 
their business models at the expense of democratic governance. 
INL programs help to secure our borders and cities by 
strengthening the ability of our partners to address threats 
before they reach our shores. INL also builds the capabilities 
and capacity of our international partners to defend their own 
citizens and systems of governance against transnational 
organized crime, corruption, terrorism, and in fact the points 
where those things link. Importantly, INL is helping 
governments to build and strengthen the rule of law that is so 
essential to economic opportunity, the kind of thing that the 
U.S. works for at home and abroad.
    Through the work of INL, the U.S. has proven over the 
decades that its influence is profound, that it is capable of 
driving progress in the global effort to confront crime and 
corruption. And through this work, the U.S. has embraced the 
idea that safeguarding our nation and its interests requires us 
to be engaged and creative and to actively cultivate the trust 
and confidence it takes to work effectively and secure the buy-
in of our international partners. This will continue to be an 
essential goal of INL, if I am confirmed.
    Through a career of more than 20 years, I have worked on 
governance, counternarcotics, and counterterrorism matters for 
the U.S. Senate, the House, the Departments of Homeland 
Security and State, at the Organization of American States, and 
on the National Security Council staff. Although focused 
heavily on the western hemisphere, I have also run programs in 
Asia, Europe, Africa, and the Middle East to build law 
enforcement and operational capacity of our partners and worked 
to gather partners to tackle global issues from piracy to 
illegal fishing to port security.
    INL has a significant budget, even in these times of 
financial pressures. As a former senior executive at State and 
the Department of Homeland Security, I understand the value of 
engaged management, effective interagency partnering, and 
securing buy-in from international partners who share our 
interests. While my Coast Guard program was on a much smaller 
scale, thinking critically about strategy, setting priorities, 
and making tough choices about how to best advance U.S. 
interests are no less essential to being the Assistant 
Secretary of State for INL.
    If confirmed, my top priorities have been set by the 
President: battling the opioid epidemic and redoubling efforts 
to counter the multi-headed hydra that is transnational 
organized crime. These are global efforts requiring our ongoing 
attention from Beijing to the Balkans to Liberia to the United 
Nations system and beyond. There will be important diplomacy 
and engagement to be done in the western hemisphere where the 
region-wide consensus we once had for counter-drug and crime 
efforts has ebbed. For our own security and prosperity, we need 
to help the rule of law recapture the momentum in this region 
and to help countries recover stolen or illicit assets and put 
them to good purpose. Likewise, the uptick in the production of 
illicit drugs in Afghanistan, Colombia, and Mexico all point to 
the need to redouble efforts to cement cooperation with them 
even as we work on the rest of the narcotic and crime continuum 
internationally and at home.
    In recent history, the INL Bureau has benefited from the 
extraordinary leadership of Ambassador Brownfield and the 
exceptional dedication and capabilities of the Foreign and 
Civil Service professionals who make up its ranks. If 
confirmed, it will be my honor to work alongside them. For the 
moment, for now, I am just grateful for their wisdom as I 
prepared for this hearing.
    In my experience, we are most successful when Congress and 
the executive branch share clarity of purpose and the long-term 
commitment to building institutions, forging partnerships, and 
constructing frameworks for international cooperation. If 
confirmed, I hope to work closely with this committee as we 
address the great challenges of our time.
    Again, thank you very much for this opportunity and I look 
forward to your questions.
    [Ms. Madison's prepared statement follows:]


                 Prepared Statement of Kirsten Madison

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify as the nominee to be the Assistant Secretary of 
State for International Narcotics and Law Enforcement Affairs. I am 
deeply honored by the President's nomination and at the prospect of 
serving my country again if confirmed.
    Since we started dating in high school, my husband Matthew--who is 
here today--has been my biggest supporter, and most honest critic and 
avid cheerleader. It means everything to know that he is with me every 
day.To my family, my brothers Jay and Erik and my parents, Lynn and 
Kathryn Madison: I know that I would not be sitting here without your 
support and encouragement.
    The INL team, led by the Assistant Secretary, is a critical player 
in tackling some of the most challenging issues confronting our nation, 
including the ongoing opioid crisis and the efforts of criminal 
networks around the world to optimize their business models at the 
expense of democratic governance. INL programs help to secure our 
borders and cities by strengthening the ability of our partners to 
address threats before they reach our shores. INL also builds the 
capabilities and capacity of international partners to defend their own 
citizens and systems of governance from the transnational crime (of all 
kinds), corruption, and terrorism that are inexorably linked. 
Importantly, INL is helping governments to build and strengthen the 
rule of law so essential to the economic opportunity the U.S. works to 
create at home and abroad.
    Through the work of INL, the U.S. has proven over the decades that 
its influence is profound, capable of driving progress in the global 
effort to confront crime and corruption. And, through this work, the 
U.S. has embraced the idea that safeguarding our nation and its 
interests requires us to be engaged and creative, and to actively 
cultivate the trust and confidence it takes to work effectively with 
and secure the buy-in of our international partners. This will be an 
essential goal of the INL team if I am confirmed.
    Through a career of more than 20 years, I have worked on 
governance, counter-narcotics, and counterterrorism matters for the 
U.S. Senate and House, the Departments of Homeland Security and State, 
the Organization of American States, and the National Security Council. 
Although focused heavily on the Western Hemisphere, I have also run 
programs in Asia, Europe, Africa, and the Middle East to build law 
enforcement and operational capacity of our partners and worked to 
gather partners to tackle global issues from piracy, to illegal 
fishing, and port security.
    INL has a significant budget, even in these times of financial 
pressures. As a former senior executive at State and Homeland Security, 
I understand the value of engaged management, effective inter-agency 
partnering, and securing buy-in from international partners who share 
our interests. While my Coast Guard program was on a smaller scale, 
thinking critically about strategy, setting priorities, and making 
tough choices about how best to advance U.S. interests are no less 
essential to being the Assistant Secretary for INL.
    If confirmed, my top priorities have been set by the President: 
battling the opioid epidemic and redoubling efforts to counter the 
multi-headed hydra that is transnational organized crime. These are 
global efforts, requiring our ongoing attention from Beijing, to the 
Balkans, to Liberia, to the United Nations system, and beyond. There 
will be important diplomacy and engagement to be done in the Western 
Hemisphere, where the region-wide consensus we once had for counterdrug 
and countercrime efforts has ebbed. For our own security and 
prosperity, we need to help the ``rule of law'' recapture the momentum 
in this region and to help countries recover stolen or illicit assets 
and put them to good purpose. Likewise, the uptick in production of 
illicit drugs in Afghanistan, Colombia, and Mexico all point to the 
need to redouble efforts to cement cooperation with them even as we 
work on the rest of the narcotic and crime continuum internationally 
and at home.
    In recent history, the INL bureau has benefited from the 
extraordinary leadership of Ambassador Brownfield and the exceptional 
dedication and capabilities of the Foreign and Civil Service 
professionals that make up its ranks. If confirmed, it will be an honor 
to work alongside them. For now, I am grateful for their wisdom as I 
prepared for the nomination process.
    In my experience, we are most successful when Congress and the 
Executive Branch share clarity of purpose and long-term commitment to 
building institutions, forging partnerships, and constructing 
frameworks for international cooperation.
    If confirmed, I hope to work closely with this committee as we 
address the challenges of our time. Again, thank you for this 
opportunity and I look forward to your questions.


    Senator Flake. Thank you, Ms. Madison.
    Mr. Hushek?

STATEMENT OF THOMAS J. HUSHEK, OF WISCONSIN, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
        STATES OF AMERICA TO THE REPUBLIC OF SOUTH SUDAN

    Mr. Hushek. Chairman Flake, Ranking Member Booker, and 
distinguished members of the committee, I am honored and 
humbled to appear before you today as the President's nominee 
to be the next United States Ambassador to the Republic of 
South Sudan.
    I would like to thank my family, friends, and colleagues 
whose encouragement and support have helped shape my career and 
made this moment possible.
    If confirmed, I look forward to working with this committee 
and other Members of Congress to advance our nation's 
priorities in South Sudan, leading our mission in Juba, and 
engage South Sudanese people and press the Government and other 
actors to find a meaningful and durable solution to the ongoing 
conflict and Africa's largest humanitarian crisis.
    Mr. Chairman, you and the members of this committee are 
well aware of the tragedy that is playing out in South Sudan. 
The independence of this nation in 2011 captured the world's 
attention and became a symbol for freedom, resilience, and the 
unbridled potential of Africa. The global community and the 
United States in particular offered unequivocal support to the 
South Sudanese people who for decades had known nothing but 
oppression, deprivation, and war. The American people provided 
vast amounts of technical advice, development assistance, and 
goodwill to support the new country's aspirations. But 
tragically, 2 years after independence, South Sudan's leaders 
in government and opposition plunged their country into an 
ever-worsening conflict and humanitarian crisis, betraying the 
dreams of the South Sudanese people for peace and development.
    Since the outbreak of hostilities in December 2013, South 
Sudanese civilians have experienced unspeakable cruelty at the 
hands of government forces and other armed actors, including 
widespread sexual violence used as a weapon of war. More than 4 
million South Sudanese have been displaced from their homes. 70 
percent of children are out of school, with roughly 19,000 of 
them forced to serve in armed groups. Without sustained 
humanitarian assistance and improved access, more than 7 
million people will face life-threatening hunger because of 
conflict this year. Even with this extreme level of need, 
parties to the conflict continue to impede delivery of 
humanitarian aid, and South Sudan is considered these most 
dangerous country in the world for humanitarians. The economy 
is in shambles, and South Sudan's modest oil wealth is being 
siphoned away through widespread corruption, fueling the 
conflict rather than the young nation's development.
    Despite the failure of South Sudan's leaders to act 
responsibly, the United States has not abandoned the South 
Sudanese people. As the single largest contributor of aid, we 
have provided more than $3 billion in emergency humanitarian 
assistance since fighting began in 2013. The American people 
should be proud of our leading role in the international effort 
to stave off famine and provide critical services such as 
water, nutrition, sanitation, and health care.
    The United States is also supporting regional efforts to 
negotiate a peaceful resolution of the conflict. Last December, 
the warring parties agreed to a cessation of hostilities as a 
first step in this process. Unfortunately, that agreement has 
been repeatedly violated by the signatories. We are working 
with African and international allies to press for its 
implementation and to apply consequences for violators. The 
United States will continue to take action against those who 
have fomented violence, obstructed the peace process, and 
enriched themselves through corruption while so many of South 
Sudan's people have been driven from their homes or are on the 
verge of famine.
    Mr. Chairman, if confirmed, I will press the leaders of all 
parties to the conflict in South Sudan and especially the 
Government to disavow violence and make the hard compromises 
necessary to achieve a peaceful resolution of their political 
differences. I will work tirelessly to urge respect for human 
rights and fundamental freedoms so that the people of South 
Sudan might once again aspire to a peaceful and prosperous 
future. I will work to ensure that America's humanitarian 
traditions are upheld and our generosity is not squandered. And 
finally, Mr. Chairman, I assure you that, if confirmed, I will 
keep as my top priority working to ensure the safety and 
security of U.S. citizens in South Sudan.
    Thank you again for this opportunity to appear before you 
today, and I look forward to answering questions you might 
have.
    [Mr. Hushek's prepared statement follows:]


                 Prepared Statement of Thomas J. Hushek

    Chairman Flake, Ranking Member Booker, and distinguished members of 
the committee, I am honored and humbled to appear before you today as 
the President's nominee to be the next United States Ambassador to the 
Republic of South Sudan. I would like to thank my family, friends, and 
colleagues whose encouragement and support have helped shape my career 
and made this moment possible. If confirmed, I look forward to working 
with this committee and other members of Congress to advance our 
nation's priorities in South Sudan, lead our mission in Juba, engage 
the South Sudanese people, and press the Government and other actors to 
find a meaningful and durable solution to the ongoing conflict and 
Africa's largest humanitarian crisis.
    Mr. Chairman, you and the members of this committee are well aware 
of the tragedy that is playing out in South Sudan. The independence of 
this nation in 2011 captured the world's attention and became a symbol 
for freedom, resilience, and the unbridled potential of Africa. The 
global community, and the United States in particular, offered 
unequivocal support to the South Sudanese people who, for decades, had 
known nothing but oppression, deprivation, and war. The American people 
provided vast amounts of technical advice, development assistance, and 
goodwill to support the new country's aspirations. But tragically, two 
years after independence, South Sudan's leaders--in the Government and 
opposition--plunged their country into an ever-worsening conflict and 
humanitarian crisis, betraying the dreams of the South Sudanese people 
for peace and development.
    Since the outbreak of hostilities in December 2013, South Sudanese 
civilians have experienced unspeakable cruelty at the hands of 
government forces and other armed actors, including widespread sexual 
violence used as a weapon of war. More than 4 million South Sudanese 
have been displaced from their homes. Seventy percent of children are 
out of school, with roughly 19,000 forced to serve in armed groups. 
Without sustained humanitarian assistance and improved access, more 
than seven million people will face life-threatening hunger because of 
the conflict this year. Even with this extreme level of need, parties 
to the conflict continue to impede delivery of humanitarian aid, and 
South Sudan is considered the most dangerous country in the world for 
humanitarians. The economy is in shambles, and South Sudan's modest oil 
wealth is being siphoned away through widespread corruption, fueling 
the conflict rather than the young nation's development.
    Despite the failure of South Sudan's leaders to act responsibly, 
the United States has not abandoned the South Sudanese people. As the 
single largest contributor of aid, we have provided more than $3 
billion in emergency humanitarian assistance since fighting began in 
2013. The American people should be proud of our leading role in the 
international effort to stave off famine and provide critical services, 
such as water, nutrition, sanitation, and health care.
    The United States also is supporting regional efforts to negotiate 
a peaceful resolution of the conflict. Last December, the warring 
parties agreed to a Cessation of Hostilities as a first step in this 
process; unfortunately, that agreement has been repeatedly violated by 
the signatories. We are working with African and international allies 
to press for its implementation and to apply consequences for 
violators. The United States will continue to take action against those 
who have fomented violence, obstructed the peace process, and enriched 
themselves through corruption, while so many of South Sudan's people 
have been driven from their homes and are on the verge of famine.
    Mr. Chairman, if confirmed, I will press the leaders of all the 
parties to the conflict in South Sudan--and especially the Government--
to disavow violence and make the hard compromises necessary to achieve 
a peaceful resolution of their political differences. I will work 
tirelessly to urge respect for human rights and fundamental freedoms so 
that the people of South Sudan might once again aspire to a peaceful 
and prosperous future. I will work to ensure that America's 
humanitarian traditions are upheld and our generosity is not 
squandered. Finally, Mr. Chairman, I assure you that, if confirmed, I 
will keep as my top priority working to ensure the safety and security 
of U.S. citizens in South Sudan.
    Thank you again for the opportunity to appear before you today. I 
look forward to answering any questions that you might have.


    Senator Flake. Thank you both for your testimony.
    Let me start with Ms. Madison. When we were in my office a 
while ago, we talked about wildlife trafficking. Senator Booker 
and I just returned from a trip to Africa. It is an extremely 
important source of revenue for the countries in southern 
Africa and certainly a form of enjoyment for a lot of American 
tourists and others who go to see obviously large herds of 
elephants and the remaining rhinos.
    What is our administration's policy with regard to wildlife 
trafficking, and what will your office do with regard to 
implementation of that policy?
    Ms. Madison. Senator, thank you for the question. In fact, 
I noticed this week there was an article about sales of 
endangered species parts on, I think it was, Facebook. It is a 
constantly evolving issue.
    Wildlife trafficking is another form of transnational 
organized crime. It, unfortunately, is a very lucrative one for 
criminals. There is high demand. There is high return on 
investment, and there is still, unfortunately, a relatively low 
risk of being caught.
    From an INL perspective, again this is transnational 
organized crime. So the bureau works in a variety of different 
ways. It works at the international multilateral level to make 
the U.N. Convention on Transnational Organized Crime real and 
to help countries make use of the tools in that to go to work 
on transnational organized crime.
    In addition, it works to build investigator capacity, law 
enforcement capacity, prosecutorial capacity in countries where 
this is an issue. And it very specifically has programs on 
wildlife trafficking. There are 20 different programs, for 
example, in Africa that are designed to help countries take 
this on.
    It is a big source of income. INTERPOL did a report not too 
long ago that said environmental crimes was between $100 
billion and $250 billion a year. So some segment of that is 
wildlife trafficking. Even if it is at the low end of that, 
that is an enormous boon to criminal organizations.
    So I think INL has a focus on this particularly in Africa 
because it is a particular challenge, but there is also work in 
Latin America and in Asia. So that is kind of the basic 
laydown, sir.
    Senator Flake. Thanks.
    When we met, you told me there is an endless desire for 
U.S. engagement in training in law enforcement issues, that the 
toughest decisions are deciding what our limits and priorities 
will be.
    Can you talk a little bit about that? How do we prioritize 
what I am sure is a lot of demand for our involvement there?
    Ms. Madison. Senator, yes, there is always an endless 
demand for our engagement, for our constructive engagement, for 
our support, for our tools--you know, law enforcement capacity, 
whichever piece of it you want to talk about. And I think that 
what you really have to do when you are confronted with global 
demand and also global challenges is figure out where you can 
most closely align with U.S. national security interests. 
Obviously, transnational organized crime and the opioid crisis 
have been prioritized by the President. But also, I think you 
have to look at the question of where you can have impact. In 
some circumstances, you cannot have impact because you do not 
have a willing partner or because the security circumstances on 
the ground do not allow you to.
    So I think it is about alignment with national security 
objectives. It is about being realistic about where you can 
have an impact, and also I think in thinking about these 
things, you have to also look at the question because most of 
the issues that INL deals with are transnational in some way. 
You have to look for where there are opportunities to work 
regionally. I think wildlife trafficking is a good example of 
where you have sort of a sweep of crime and where regional 
efforts can be powerful.
    Senator Flake. Thank you.
    Mr. Hushek, we have been without an Ambassador to South 
Sudan for almost a year now. It was the summer of 2017. How do 
we put an ambassador there now without lending legitimacy to 
the Government and their actions of late? What is the State 
Department prepared to do to tell Juba that what has been going 
on is certainly not acceptable?
    Mr. Hushek. Thank you.
    Yes, it has been since last summer since an ambassador was 
there. Of course, our embassy is remaining active. But as an 
Ambassador, if confirmed, one of the main things I will be 
committed to is delivering those tough messages to the highest 
level of the Government as possible.
    Another very important part of what I and the embassy will 
be working on is communicating and relating to the people of 
South Sudan, and that goes beyond just government officials. 
Right now, in order to put pressure on the Government of South 
Sudan and the other parties to the conflict, the State 
Department and the U.S. Government are putting on a series of 
escalating mechanisms to force the parties to take seriously 
the political talks that are going on to end the conflict.
    So last fall, shortly after the Ambassador left, we put in 
some sanctions against three high-level individuals and then 
another one in December, a business associate of the president.
    And in February, we instituted a national arms embargo 
preventing arms and ammunitions going from the U.S. there to 
verify an effective policy that we had in place already.
    And also this spring, we have worked through multilateral 
organizations to renew the mandates of the U.N. mission in 
South Sudan, as well as the U.N. Human Rights Commission for 
South Sudan, so those kind of multilateral mechanisms as well.
    All during that period, we have also been supporting these 
ongoing peace talks called the High Level Revitalisation Forum, 
coordinating among the donor nations and, most importantly, 
with the neighboring countries to South Sudan to put pressure 
on the Government and the other parties.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. I am going to defer to Senator Shaheen.
    Senator Shaheen. Thank you very much, Chairman Booker.
    Thank you both for being willing to take on these very 
important roles at this difficult time.
    I am going to begin with you, Ms. Madison, because you 
talked about the role of the INL in the whole drug trafficking 
issue. And as you may be aware, New Hampshire is one of those 
States in the U.S. that is at the epicenter of the opioid and 
heroin epidemic that we are experiencing. We have the highest 
rate of fentanyl overdose deaths in the country.
    So I wonder if you can talk about what more INL can do to 
counter the flow of fentanyl in particular but other drugs, of 
course, and what more you think the Congress can do to help 
support your efforts.
    Ms. Madison. Senator, thank you very much for the question.
    I think if there is any one issue that was raised, as I did 
my consultative meetings on the Hill, whether at the staff 
level or the Senator level, it was this one because of the 
impact on so many communities and cities and families in this 
country.
    I think INL is working in a very concerted way on this 
already in the sense that it is engaged at the multilateral 
level, at the international narcotics control level, in the 
U.N. Office on Drugs and Crime to build the frameworks, to 
strengthen the frameworks that we have to control drugs, and 
also to make use of the tools that are in those agreements and 
in those organizations to actually get more drugs, opioids 
specifically, under international control. We control many 
things domestically and we need other countries to do it 
domestically, but that international control piece is really 
essential.
    I think INL has done some very effective work already to 
get more drugs under control and also to try to accelerate the 
pace of control because what the drug organizations do is they 
change the formula and then they have another drug. And you get 
in this endless cycle of trying to get ahead of what they are 
up to.
    So I think the international piece of it is important. I 
think it is going to remain important, and I think in addition 
to being a framework and way of working together, there are 
tools built into those international agreements that we can 
actually put to work to allow for real-time operational 
cooperation. You know, you have to kind of tackle every piece 
of the chain.
    I think the bilateral work that has been done with China so 
far by INL has actually been impressive. They do not have a 
domestic use problem in China, but they have moved to control 
more than 140 synthetic opioids, including carfentanil, which 
of course is an enormous problem. And they have also moved to 
provide a lot more advanced electronic data that allows us to 
sort of get a sense of what is moving in the mail because it is 
a principal delivery system.
    I think that one of the things that is left to be done is 
to encourage the Chinese to actually do more control of 
synthetic opioids as a class, again to get out ahead of what is 
going on with the changes in formulas. I think there is more 
work to be done on the mail front, not just for the Chinese, 
but not every country has the capability to share information. 
And I think as I understand it as an outsider looking in, INL 
is also looking at the question of what else can be done with 
the International Postal Union to tackle that piece of it.
    There is another piece that I think requires attention that 
is continuing to evolve, which is the criminal use of the 
Internet for the sales on the dark web and their convergence 
with cryptocurrencies which are, unfortunately, very agile and 
anonymous tools to move money. And that is a piece that, if I 
were confirmed, I want to really understand where we are on 
that and what else we can do to kind of get in front of it. I 
know there is plenty of work going on. INL is doing a lot of 
work on cyber crime and financial crimes. But again, this is an 
evolving area of this, and I think it should be of great 
concern to us.
    Senator Shaheen. Thank you.
    Ms. Madison. Sorry. I used a lot of your time, Senator.
    Senator Shaheen. INL operates the International Law 
Enforcement Academies. As we look at the challenges that are 
facing so many countries, whether it is South Sudan or 
countries in Eastern Europe, we are seeing in South America 
corruption is one of the biggest challenges. And obviously, 
having a law enforcement system and a judicial system that is 
able to address that corruption and helping to change what has 
been a culture in some of those countries is really important. 
I had a chance to visit the Law Enforcement Academy in Budapest 
last year and was very impressed with what I heard from the 
people who were students at the academy who were law 
enforcement in various countries, most of them in Eastern 
Europe. But can you just talk about the commitment of INL to 
continue the work there and how important it is?
    Ms. Madison. Thank you for the question, Senator. I will 
try to be very quick this time.
    Yes, the ILEAs are actually really important. I have only 
ever visited the one in El Salvador because I worked on the 
western hemisphere. First of all, it is considered to be very 
prestigious to go, which I think is good. It has some appeal.
    But I think part of what INL is doing with the ILEAs is 
helping to build into the police forces and into the academies 
the idea that you have to have professional ethics and respect 
for human rights. And they are also helping to build internal 
affairs organizations and other preventative structures into 
the police forces that they work with. So the ILEAs can be very 
powerful I think in helping to sort of build that in from the 
bottom up.
    Senator Shaheen. And the networks that the students who 
attend there develop is also very important, as we heard.
    I am out of time, but I do want to ask for your commitment 
to--one of the great things that INL does is to encourage the 
women being part of police forces and law enforcement around 
the world, and that has had some real success. I hope that you 
will remain committed to ensuring that that program not only 
continues but that it grows.
    Ms. Madison. Senator, thank you very much for the question.
    I do think INL does a good job of trying to build this 
sensibility and effort in from the ground up, and I will 
absolutely remain committed to the effort.
    Senator Shaheen. Thank you.
    Mr. Hushek, I leave you to Senator Young. [Laughter.]
    Senator Flake. And with that, Senator Young.
    Senator Young. Thank you, Chairman.
    Ms. Madison, you are nominated to serve as Assistant 
Secretary of State for International Narcotics and Law 
Enforcement Affairs. You wrote in your prepared remarks that, 
if confirmed, you would be a critical player in tackling some 
of the most challenging issues confronting our nation, 
including the ongoing opioid crisis.
    Now, many people in my State of Indiana like so many other 
Americans have been afflicted by this opioid crisis. In fact, 
in the year 2016, which is the year for which we have most 
recent data, there were 785 drug overdose deaths involving 
opioids. If you lose a father, a mother, a sibling, a son, it 
can really impact the home, and that ripples throughout a 
community.
    If confirmed, I just want to make sure, in light of the 
increasing severity of this crisis, do you commit to me and to 
this committee as well that you will make battling the opioid 
epidemic one of your top priorities?
    Ms. Madison. Senator, the answer to your question is 
absolutely yes.
    Senator Young. Excellent. Thank you.
    As you know, fentanyl is a synthetic opioid. It is much 
more potent than heroin. We know that secretly produced 
fentanyl, as well as most of the associated illegal precursors 
and analogs, are primarily sourced through China, and they are 
smuggled into the U.S. through Mexico, Canada, and also through 
direct mail.
    Now, it is my understanding Mexico serves as a 
transshipment point, and there are labs in Mexico or there may 
be labs in Mexico that use precursor chemicals that are then 
smuggled over our southwestern border to produce fentanyl.
    Based on your experience and your preparation for this 
hearing, Ms. Madison, can you provide just a quick update on 
the transnational elements of the opioid crisis?
    Ms. Madison. Senator, thank you for your question.
    This is really at the heart of INL's piece of this. Of 
course, there is a domestic piece in prevention and law 
enforcement and other elements of this, but INL's piece is this 
transnational effort to secure cooperation and work across 
borders.
    I think that the opioid trade, the illicit opioid trade, 
whether it is heroin from Mexico or synthetics from China, 
relies on various means to get here, as you noted, the mail. 
But I do think we are seeing this process of fentanyl being cut 
into other drugs and then delivered to the U.S. So there is 
very definitely a piece of this process that is about securing 
the cooperation with Mexico in particular because that is a 
pathway. And I do think there is a pretty good basis--there is 
actually an incredible basis of cooperation with Mexico on 
these issues.
    But, yes, the problem is even if you tackle the mail piece 
of it, what will happen is the traffickers will shift over and 
use whatever means that they can. And so that avenue through 
Mexico or any other country that they can get their product 
through will remain an important thing for us to work on. And 
if I am confirmed, of course that would be a priority.
    Senator Young. Are there specific things either now or in 
the near term that you think need to be done that are not being 
done that can help address the illicit flow of these precursors 
or of opioids into our country and therefore adversely impact 
the younger population?
    Ms. Madison. Senator, as I mentioned, I think that there is 
some undone work on the mail front. I think there is some 
undone work on the control front. I think we need to kind of 
have the broader framework in place. We need to use the control 
regimes. And then I think the ongoing effort of working with 
Mexico to improve their capabilities to control what moves in 
and out of their country, the intelligence sharing, and finding 
ways to expand that will continue to be important. It is a 
question of constant vigilance and those relationships and 
those working partnerships.
    Senator Young. Well, thank you. I am going to have my team 
follow up with you, with your indulgence, after this hearing 
just to gather your insights based on your professional 
experience to see if there are other countries or international 
organizations from whom we might learn best practices, whether 
it is on the law enforcement end of things or treatment or 
prevention, because we tend to think of the opioid crisis as a 
national crisis, and indeed it is that. But in preparation for 
this hearing, it was quite clear to me that this is also an 
international crisis, and there may be countries doing things 
more effectively than we are. So do you commit to working with 
my team on that?
    Ms. Madison. Senator, I would be delighted to have the 
conversation, if confirmed or before I am confirmed as part of 
this process. Absolutely.
    And it is in fact a global crisis. I think you can read in 
a newspaper in the UK or many other places in the world about 
the impact of illicit opioids on families and cities. We are 
not alone, and we have not necessarily cornered the market on 
good ideas.
    Senator Young. Lastly with the chairman's indulgence, I 
would just like to communicate to you I will be submitting a 
question for the record pertaining to your work on the issue of 
illegal fishing. This is something I have been learning more 
about recently. It has some really serious consequences and I 
think highly under-reported. And so I appreciate your 
assistance in answering those questions.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. Thank you very much.
    Mr. Hushek, how do you evaluate the role of the IGAD who 
has been trying for years to negotiate some kind of peace 
deals, which seem to be broken time and time again?
    Mr. Hushek. Well, the IGAD continues to be very important 
in the peace process. This is composed of the countries that 
are immediate neighbors to South Sudan. So a peace process to 
be enforced would require these countries to be intimately 
involved.
    The current ongoing high-level Revitalisation Forum----
    Senator Booker. They just were meeting in March. Right?
    Mr. Hushek. They met twice in December and then again in 
February and are going to be meeting again later this month for 
a third round.
    They still have yet to tackle the very serious security and 
governance issues that are on the table, and this has to do, in 
part, as I mentioned before, with the incentives of the parties 
to negotiate in good faith. For our part, we are putting extra 
pressure on--using pressure mechanisms to make sure that they 
sit at the table and negotiate. These are the sanctions and the 
other measures that we have taken.
    We have also continued to support some of the mechanisms 
that will ultimately be used for providing accountability for 
the serious human rights and other crimes that have taken 
place. And the IGAD will play a role in this as well.
    If you look at it as concentric circles, outside the IGAD 
countries, there are also the broader African Union and the 
United Nations, and we are working in all these fora to press 
these issues. But in fact, these immediate neighboring 
countries play the most important role in getting this peace 
process moving forward.
    Senator Booker. It seems like we have been doing a lot of 
the same things over and over again and not getting anywhere. 
Could you articulate to me a strategy born from the wisdom of 
not our failures but the failure to bring about peace here?
    Mr. Hushek. Yes. One of the newer ingredients in the 
process is putting on a campaign of increasing pressure on the 
parties. So it started out long ago with some UN-sponsored 
sanctions for field level commanders. Last fall, we took it up 
to the next level and we put on sanctions on some people that 
were at cabinet level positions in the Government or 
equivalents. And the idea is to continue to increase this 
pressure.
    We have also moved up in the area of arms embargo. We still 
are pursuing that, exploring the possibility----
    Senator Booker. Can you just hold on for a second? I am 
sorry to interrupt you.
    So according to my notes, we have got sanctions on about 10 
individuals in South Sudan, four of whom were just sanctioned 
last year. But how do you evaluate the impact of that tool and 
those sanctions?
    Mr. Hushek. Those sanctions with the other related items 
like the recent addition of petroleum entities on the 
Department of Commerce's entities list and the arms embargo 
that I mentioned--those things have gotten some attention in 
Juba and in the region I have to say. The intermediate step, 
though, is to get the neighboring countries to also put on the 
same kind of pressure on the parties that they are in most 
close touch with. So the Governments in Ethiopia, Uganda, 
Kenya, Sudan are very important to get into the process.
    Senator Booker. In the Bush administration, Deputy 
Secretary Bob Zoellick played an important role as a point 
person, you know, after Special Envoy John Danforth left the 
post vacant. And I am just wondering. We have seen from the 
Bush administration and Obama administration high-level 
diplomatic efforts. And I am just wondering do you think that 
higher-level diplomatic efforts or a deputy secretary or 
special envoy positions--do you think that that is something 
that we could be ramping up now in your evaluation?
    Mr. Hushek. Yes. I think we definitely need high-level 
attention. I as the Ambassador, if confirmed, will of course be 
able to deliver messages at the highest levels in Juba, but 
since this is really a problem that will require regional 
participation, it is important to have high-level attention 
from the administration.
    So far, in the past year, we have had Ambassador Haley, our 
Ambassador to the U.N., and Administrator Mark Green from USAID 
visit and deliver very tough messages to President Salva Kiir 
and others. And also there have been some members of this body 
that have also visited and helped us deliver strong messages. 
So we need to keep that high-level engagement very much active. 
Secretary Tillerson, when he was out there last month, also 
raised South Sudan in some of the regional stops that he made 
during his visit. But we definitely need to continue to pursue 
high-level attention to the problem.
    Senator Booker. Two of my esteemed colleagues have come, so 
I do not want to go over my time any more, but I do want to 
come back to this again.
    Senator Flake. Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thanks to both of you for your willingness to serve, and 
congratulations on the nominations.
    Just last week, a couple of weeks during the congressional 
work period, I had an opportunity to visit places across 
Colorado holding a number of roundtables on drug abuse, opioid 
addiction, and law enforcement roundtables where we talked 
about what is happening in Colorado and beyond.
    One of the most alarming and shocking discussions we had 
was a roundtable in Alamosa, Colorado, which is in the San Luis 
Valley in the southern part of Colorado where 90 percent of the 
inmates in the local jail are addicted to drugs, where we had a 
discussion with the local hospital about how they are trying to 
get nasal injections of Narcan to kids because it is easier for 
the kids to administer that to their parents when they 
overdose. This is pretty heavy stuff.
    You know, we talk about things like a New York Times 
report. Afghanistan continues to produce about 85 percent of 
the world's opium despite more than $8 billion the U.S. has 
spent fighting the problem. The United Nations Office on Drugs 
and Crime reports another 17. China is playing a key role in 
the surge of opium production in Afghanistan by generating new 
strains of genetically modified seed allowing poppies to be 
grown year-round. The seeds began appearing in 2015 and led to 
a massive 43 percent surge in production in 2016.
    Ms. Madison, do you agree with that report? What should we 
be doing to address China's influence in Afghanistan's drug 
trafficking? I mean, what is appearing in the San Luis Valley 
in Colorado obviously is not coming from something grown there, 
but it is coming from the outside. What should we be doing? Do 
you agree with it?
    Ms. Madison. Senator, thank you for the question.
    Yes, the opioid crisis is a global problem, and even though 
the opioids that come out of Afghanistan do not tend to make it 
to the U.S., they make it as far as Canada. So I do not think 
we should be sanguine about the future path of those drugs, 
should the traffickers decide the market conditions are right 
for them to come here.
    I think that what we need to be doing is continuing to work 
on all of the elements of this problem. It is transnational 
organized crime. There are international frameworks that we can 
encourage countries to sign up to, use the frameworks and the 
organizations like the U.N. Office on Drugs and Crime to hold 
them accountable to that, to make use of those tools, to 
improve operational cooperation and frameworks in these 
individual governments.
    I think that the surge that we are seeing in production in 
a variety of places is of concern, of course. It is of concern 
in Mexico. It is a concern on the cocaine front in Colombia. 
But I think those international frameworks are the starting 
point because they allow us to advance the process of 
controlling these substances, which begins to help to sort of 
limit the range of motion that the traffickers have.
    And I think INL's work also--they work at a bilateral 
level. They are working in individual countries to build law 
enforcement capabilities, to build investigative capabilities, 
to help countries' financial intelligence units and other 
financially focused organizations tackle the money piece of it 
because the drugs do not move without the money and that is a 
really critical piece of this puzzle and the anti-money 
laundering efforts that INL works on. So I think there is a 
bilateral piece of it, and I think that all of those pieces 
have to be brought to bear if we want to tackle this.
    One of the things that I referred to in my opening 
statement that I think bears emphasis is when we show up in 
these countries and we do not just say cooperate with us, but 
we say, look, we need your help. It is in your interest to work 
on this. It is in our interest to work on this. And we show up 
and we bring tools, and we say, look, this is assistance that 
can help you investigate. It can help you prosecute. That is 
when we actually can be successful. It is actually the sort of 
secret power of INL. It has resources to come and bring tools 
to the table to actually help countries be our partners and 
help them cooperate with us. I think there is power in that.
    You know, there is no silver bullet and there is nothing 
quick. It is about building those enduring partnerships and 
building enduring capability and beginning to limit the range 
of motion for the narcotraffickers over time.
    Senator Gardner. Human Rights Watch estimates that the war 
on drugs in the Philippines led by President Duterte has cost 
12,000 lives. Obviously, they have a drug problem in the 
Philippines. Some of it is related to China as well. How do we 
work both to end and help the Philippines address this war on 
drugs but also make sure that we are addressing the human 
rights issues that accompany this war on drugs?
    Ms. Madison. Senator, thank you for this question.
    The Philippines is a particularly challenging place. Really 
I think the U.S. Government has great cooperation with the 
Philippines on the maritime issues and some other things, but 
we have an obvious and completely justified concern with their 
approach to their war on drugs. It is essentially extrajudicial 
killings masquerading as justice. It means that the system is 
failing.
    I think INL has, as I understand it, reviewed their entire 
program in 2016, shifted away from working with the police, and 
is focused on working with the criminal justice institutions 
and development, domestic prevention programs because, as you 
noted, the source of the problem here is they have a domestic 
use problem. And built into those programs is a large human 
rights component because there needs to be. I think over time 
you can begin to create the infrastructure of the rule of law 
and criminal justice systems that are actually respectful of 
human rights and institutions that can appropriately do their 
job in a democratic context.
    Senator Gardner. Thank you both for your time and 
testimony.
    Mr. Chairman, thanks.
    Senator Flake. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of you for your nomination to 
these positions.
    Mr. Hushek, I want to ask you a question about protection 
of aid workers. South Sudan is reportedly the deadliest country 
in the world for aid workers. 95 have been killed since 2013. 
Most of them are local staff. And aid agencies report hundreds 
of what they call access incidents in the country in 2016, 70 
percent of them violent, and the number of incidents increased 
to 1,159 in 2017, which was the highest number of incidents 
yet.
    Some suggest that these international aid workers are 
increasingly alleged to be agents of regime change and that is 
why they get targeted.
    What pressure can the U.S. put on the Government of South 
Sudan to ensure that aid workers, especially local staff, are 
better protected?
    Mr. Hushek. Thank you.
    Yes, South Sudan is considered the most dangerous place in 
the world for humanitarian workers. Just this last several 
days, there were the first two deaths of humanitarian workers 
in 2018. So the numbers do keep going up.
    If confirmed, I will ensure that one of the main priorities 
of the embassy will continue to be coordination and advocacy on 
these issues of access for humanitarian workers and security 
for humanitarian workers. Our programs, mostly run by USAID, do 
build in a lot of good monitoring to look for diversions, 
obstructions to the process so we can tackle them early. We 
participate actively in all the coordinating mechanisms with 
the broader aid community in South Sudan and play strong 
leadership roles in a lot of these as well in Juba. And that 
coordinating mechanism is something that I think the U.S. 
embassy there is very uniquely positioned to do. It is one of 
the largest missions there, and we have the expertise in all 
these areas and, of course, the strong record as humanitarian 
donors.
    On the security front also, USAID and others imitate this 
process well, but we build into the programs with our 
implementing partners a good flow of information about security 
conditions and also an expectation that all the implementing 
partners have strong security plans as well. So these steps are 
important to try to address these problems, but it is one that 
will remain high on my agenda, if confirmed.
    Senator Kaine. Excellent. Thank you.
    Ms. Madison, I want to ask you about Colombia and cocaine. 
The U.S.-Colombian relationship has been very powerful. The 
Plan Colombia, now Peace Colombia--you know, we have shown that 
partnership across different administrations of different 
parties have enabled significant progress to occur. But there 
is a dramatic expansion of coca production in Colombia, and we 
are seeing in the U.S. cocaine kind of back on the uptick. I 
just came from a HELP hearing on opioids. We talked about 
opioids and fentanyl here. But we are seeing cocaine use in the 
United States start to increase again.
    What do you see that you might be able to do, if confirmed, 
to work with what has been a good U.S. partner, Colombia, to 
try to figure out a way to do more on the supply eradication 
side?
    Ms. Madison. Senator, thank you for the question.
    I am, I guess, unfortunately, old enough to have been here 
when we were doing Plan Colombia on Capitol Hill, and I 
remember that in those days, we were talking about the 
potential of a failed state in Colombia. And now I think we 
have a very strong partner in that country in many ways and 
both deep and wide cooperation.
    Obviously, the surge in coca production, cocaine production 
in Colombia is of concern. And I think that it requires us to 
remain engaged on a variety of things whether it is their 
eradication targeting or the other sort of elements of their 
program.
    I think that there is a new administration coming in 
Colombia this summer. One of the things I actually think that 
we need to be doing is positioning ourselves so that we are 
engaged early and often with them on their larger strategy 
because I think what they are planning to do, in terms of 
eradication, and while they are having a great year in terms of 
interdiction and they have done a lot of manual eradication--
what they are planning to do now will not keep them ahead of 
the curve. So I think that we need to remain engaged with the 
Colombians. We need to continue to encourage them to sort of 
increase their eradication targets. And I think when you have a 
new administration inbound, it is a great opportunity to renew 
the conversation and seek their cooperation.
    The Colombians understand how important this issue is to 
them. I think they are balancing a lot of issues internally, of 
course, with the peace process and other things, but I think 
that it is a great partnership and we can build on it to tackle 
this piece of the challenge.
    Senator Kaine. Thank you very much.
    Thank you, Mr. Chair.
    Senator Flake. Thank you, Senator Kaine.
    And I thank all of you for participating. You had a good 
showing here and a lot of interest in the work that you are 
going to do.
    Senator Booker. Can I ask one other?
    Senator Flake. Go ahead. Yes, go ahead. Senator Booker will 
have a few more questions.
    Senator Booker. I just have a few more questions. I 
apologize.
    Senator Flake. No problem.
    Senator Booker. Because I am really concerned about the 
role of the neighbors you were talking about and some of their 
behavior, whether it is Kenya seeming to undermine our 
sanctions by allowing South Sudanese to get involved or in 
Uganda who we are funding in significant ways and supporting 
militarily, in fact, perhaps one of the most significant 
recipients of a lot of our resources in sub-Saharan Africa. But 
they seem to be supplying arms that are making this conflict 
worse.
    So I am wondering. As you say trying to pull our allies in, 
should we be taking a much stronger role, a much stronger 
stance against allies undermining our efforts?
    Mr. Hushek. Yes. So far the efforts that I spoke of on 
sanctions and the national-level arms embargo, these are 
national U.S. mechanisms. But a very important key would be to 
the extent that we can multilateralize these to do that.
    So on the arms embargo, of course we have been supporting a 
full arms embargo in the United Nations since 2016. We brought 
it to a vote but it did not pass in December 2016. And we are 
keeping our eye on whether the balance, the calculus has 
changed enough to take that back to the Security Council that 
would really make a stronger efforts on the arms flow.
    On the sanctions, also you are right that these are, again, 
sanctions that we have put in place--the recent ones at least--
to convince the countries in the region to take it as seriously 
as we do. A lot of the leaders in South Sudan, Government and 
opposition, have family members living, banking in neighboring 
countries.
    Senator Booker. Just real quick because according to my 
notes, the U.N. panel has already reported that Uganda supplied 
Kiir's regime with weapons. And we are giving weapons to--the 
DOD spent $130 million to train and equip in Uganda. And 
according to my notes, we have given a pattern of a lot of 
heavy equipment, including helicopters and ammunition. And 
there is concern that they have been transferred from Uganda to 
South Sudan. Is this not a serious undermining of our efforts 
in that area?
    Mr. Hushek. I do not know that U.S.-supplied weapons have 
been transferred from Uganda to South Sudan, but the flow, at 
least through Uganda into South Sudan, of ammunition even is 
something that has been reported. The idea of the arms embargo 
or stopping the ammunition and arms flows into the country is 
in order to reduce the suffering of the victims of the civil 
war. So wherever we can find places to put pressure on, we 
should be doing that.
    That is why one of the ideas of multilateralizing an arms 
embargo would be good, but right now, we do not have the votes 
in the Security Council to do that. We have gotten positive 
statements in the recent months on the margins of these peace 
talks where the neighboring countries and the AU are starting 
to recognize that there need to be consequences put in place 
for people that are undermining the peace process. But so far 
strong actions have not been taken based on those statements.
    Senator Booker. Just really quick, Ms. Madison.
    Thank you very much, Mr. Hushek.
    Just really quick. So obviously, we have three branches of 
government. We have the administration and Congress. We are in 
charge of the power of the purse. The President proposes a 
budget. Can your work withstand a 40 percent cut in resources, 
the critical work that you are doing if you are advising the 
people that actually have the power of the purse?
    Ms. Madison. Senator, thank you for your question.
    I think INL still has a substantial budget. I think any big 
cut requires you to just sort the priorities more aggressively. 
And since I am not on the inside, I suspect that what went on 
inside of INL was that they looked at programs, looked at 
anything that was less effective or less impactful, looked at 
how things aligned to the top priorities, and set about the 
business----
    Senator Booker. No. I appreciate that. Clearly there is a 
crisis in this country that is growing worse. Clearly those 
programs that are effective might demand more resources not 
less. I was a mayor of a city. I cut my government 25 percent. 
So I am a cutter and was able to raise efficiency. So I know 
how government can often do things backwards, to put it 
politely. But when you find things that are making a difference 
at a time that thousands and thousands of Americans are dying, 
should we not be doubling down our efforts and not constraining 
them?
    Ms. Madison. Senator, if confirmed, I would, of course, 
support the President's budget. But what I will say is that 
your job, when you are an Assistant Secretary, when you are in 
a senior leadership position--your job is to understand your 
programs and be the best possible advocate for them in the 
internal budget process. I have been inside of government 
agencies when the budgets were down, and that really is what it 
is about. It is about making the best case for the things that 
you can put on the table to serve the national security 
interests of the country. So by the time a budget is put out, 
that has all happened.
    So what I can say is if I am in this job, one of the first 
things that I will do is get to know these programs in the best 
possible way, get to understand their impact and effectiveness, 
and position myself to be the best advocate I can be for the 
work of this bureau and for the contribution it makes to the 
security of our country.
    Senator Booker. That was a nimble, dexterous, and good 
answer. Your husband behind you is beaming with pride as he saw 
how you successfully navigated my onslaught. [Laughter.]
    Senator Booker [continuing]. You will be a very good 
diplomat. [Laughter.]
    Senator Flake. Agreed.
    Thanks to both the witnesses today.
    The hearing record will remain open till the close of 
business, including for members to submit questions for the 
record. We ask the witnesses to respond promptly. So any 
responses will be made a part of the record.
    I appreciate your willingness to serve and the sacrifices 
made by your families and friends to have you serve. Thank you 
for being here.
    And we conclude this hearing.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to
            Kirsten Dawn Madison by Senator Robert Menendez

    Question 1. The United States is suffering an opioid epidemic that 
has taken the lives of tens of thousands of American citizens and is 
increasingly fueled heroin and fentanyl that is trafficked into our 
country. If confirmed, how will you prioritize combatting illicit 
heroin and fentanyl trafficking?

    Answer. If confirmed, combating illicit heroin and fentanyl 
trafficking will be one of my top priorities as INL Assistant 
Secretary. I will prioritize State Department efforts to employ a 
coordinated approach to disrupt the sources and trafficking of heroin 
and illicit fentanyl coming to the United States. This would include 
regional and bilateral efforts to engage key partners like Mexico and 
China. With Mexico, I would seek to deepen the U.S. partnership with 
their government and improve their capacity to attack transnational 
criminal organizations. With China, I would support greater cooperation 
with them on efforts to prevent the illicit production and shipments of 
synthetic drugs like fentanyl. I would also deepen cooperation with key 
multilateral organizations to control the production and sale of deadly 
synthetic opioids, expand efforts to interdict these drugs in the 
international mail and express consignment courier systems, and take 
down illicit drug sales sites on the internet and Dark Web.

    Question 2. What is your assessment of the importance of U.S.-
Mexico cooperation to address illicit heroin and fentanyl trafficking 
and transnational organized crime?

    Answer. Mexico is an essential partner on counternarcotics and 
disrupting transnational organized crime. If confirmed, I will ensure 
the Department of State continues to work closely with Mexico to reduce 
the availability and trafficking of heroin, fentanyl, and other illicit 
drugs to the United States. With presidential elections in Mexico on 
the horizon, INL will have an important role to play in setting the 
tone for future cooperation on these issues as the new Mexican 
administration assumes office.
    To protect American lives, we must curb U.S. demand that fuels the 
illicit drug trade; disrupt networks that smuggle drugs, cash, and 
weapons across our shared border with Mexico; partner with Mexico to 
achieve meaningful criminal justice outcomes that deny transnational 
criminal organizations the ability to act with impunity and profit from 
their crimes; and fight the corruption that undermines our efforts.

    Question 3. What is your assessment of the importance of U.S.-China 
cooperation to address illicit fentanyl trafficking?

    Answer. China is a major source of illicit fentanyl and its 
precursor chemicals and therefore a critical partner in the global 
effort to address these threats. The rise in fentanyl-related deaths in 
the United States has created greater urgency for close cooperation. 
China domestically controlled 143 synthetic substances, including 
carfentanil and nine other fentanyl analogues, at our request. Five of 
those substances have been controlled since the President's November 
2017 meeting with President Xi.
    I understand it will likely take at least a calendar year for China 
to take the necessary steps to control fentanyl analogues as a class. 
One of my priorities, if confirmed, will be to work with Ambassador 
Branstad to press the Chinese to do more on this issue, including 
through chairing the U.S.-China Joint Liaison Group on Law Enforcement 
and Cybersecurity Cooperation.

    Question 4. At a time when the political relationship between the 
U.S. and Mexico is under increasing duress, how will you work to 
sustain and build the cooperation necessary to combat illicit 
trafficking and transnational organized crime?

    Answer. If confirmed, I will ensure the Department of State 
continues to work with Mexico to sustain and advance our security 
cooperation. We will work to disrupt networks that smuggle drugs, cash, 
and weapons across our shared border; partner with Mexico to achieve 
meaningful criminal justice outcomes that deny traffickers the ability 
to act with impunity and profit from their crimes; and fight the 
corruption that undermines our efforts. Importantly, the work done 
under the Merida Initiative since 2007 has built a deep and substantive 
cooperative relationship with Mexico founded on what I believe is a 
mutual recognition that these issues must be tackled for the well-being 
of both countries and their citizens.

    Question 5. What additional steps will you take to expand U.S. 
efforts to combat heroin and fentanyl trafficking?

    Answer. If confirmed, I will ensure that INL effectively works with 
key source countries like Mexico and China to crack down on the 
production and trafficking of heroin and illicit fentanyl. I will 
engage these countries vigorously through existing platforms such as 
the Joint Liaison Group on Law Enforcement and Cybersecurity 
Cooperation (JLG/LECC) with China, and the North American Drug Dialogue 
with Mexico and Canada, as well as through multilateral fora to 
increase international cooperation.
    If confirmed, I will direct INL to support critical efforts to 
increase information sharing on the trafficking and use of opioids and 
real-time cooperation among law enforcement officials. This includes 
exploring the links among cryptocurrencies, the Dark Web, and 
traffickers, as well as interventions to address them. I will also work 
with my colleagues in the Bureau of International Organizations to seek 
enhanced collaboration with the Universal Postal Union to expand 
international capacities to detect and interdict fentanyl and other 
dangerous drugs trafficked by international mail.

    Question 6. How will your efforts be affected by the President's 
proposed 30 percent cut to the INL budget, including a 38 percent cut 
to INL funding for Mexico?

    Answer. While the overall budget has been reduced, I understand the 
Department's fiscal year 2019 budget request focuses resources for INL 
on core U.S. national security priorities, including efforts to combat 
the opioid epidemic. The request includes funding for programs to 
combat the flow of heroin and fentanyl to the United States. If 
confirmed, I will ensure the Department of State continues to work 
closely with Mexico, China, and other international partners to reduce 
the production and availability of heroin, fentanyl, and other illicit 
drugs and to dismantle transnational criminal organizations.

    Question 7. What do you see as the role of INL in countering malign 
Russian Government influence in Europe, including in Ukraine but also 
in the Western Balkans and Central Europe?

    Answer. INL programs play an important role in directly countering 
Russian interference in Ukraine, the Western Balkans, and in Central 
Europe. Crime and corruption create conditions, such as lack of 
confidence in government institutions, which Russia can exploit. INL's 
programs help strengthen the ability of law enforcement agencies and 
justice sector institutions to hold corrupt leaders accountable and to 
combat corruption and organized crime. INL programming also develop 
civil society organizations that are more capable of holding 
governments accountable, thus helping these countries to develop a 
robust culture of democratic values.

    Question 8. What specific programs/activities will you seek to 
support to this end?

    Answer. I believe the United States can and should play a role in 
enhancing our partners' resilience against Russia's efforts to 
undermine their democratic processes. If confirmed, I will support the 
continuation of INL programs in Europe and Eurasia, which build the 
capacity of partner nations' law enforcement and judicial sectors to 
fight against transnational organized crime, including through the 
development of core and advanced law enforcement competencies such as 
anti-money laundering and asset forfeiture. I will also support the 
continuation of INL's work to strengthen border security in countries 
such as Ukraine to protect their sovereign territorial integrity 
against direct Russian aggression. Globally, I will support cybercrime 
programs to help countries better defend themselves against Russian-
sponsored cyber criminals.

    Question 9. How will you support the objectives of these programs 
with diplomacy and engagement in the interagency policy process to 
develop effective strategies to counter Kremlin aggression?

    Answer. Russia has shown through its actions that it rejects the 
post-Cold War order. Its aggression in Ukraine, and earlier in Georgia, 
is the most obvious demonstration that Moscow is willing to undermine 
norms within the existing international system. Russia's efforts have 
extended beyond traditional military campaigns to encompass a suite of 
``hybrid'' tools that are used to gain influence.
    Russia's campaign is aggressive, coordinated, and involves a whole-
of-government approach. Among other tactics, Moscow exploits countries' 
weak judicial sectors, fomenting instability through corruption and 
organized crime, and supports domestic, often extremist, political 
parties.
    Russian efforts to undermine stability and democratic institutions 
are unacceptable and require a whole-of-government response. If 
confirmed, I will ensure INL works collaboratively with U.S. 
interagency partners and with our allies to deter and defend against 
these activities at home and abroad. I will support our combined 
diplomatic, foreign assistance, intelligence, and law enforcement lines 
of effort to roll back Russian influence.

    Question 10. The U.S. financial system faces challenges globally 
from financial crimes, money laundering and transnational organized 
crimes. What is your assessment of the importance of INL's work to 
combat international financial crimes and money laundering?

    Answer. I believe INL has a key role in combating financial crimes 
and money laundering globally by strengthening our foreign partners' 
ability to enforce laws consistent with international standards and 
good practices. This work involves ensuring that partner nations have 
institutions and personnel in place with the skills and tools to 
prevent, investigate, and prosecute financial crimes and money 
laundering. I have long believed that preventing and combating 
international financial crime and money laundering is vital to 
protecting U.S. markets and interests. If confirmed, I will support 
INL's continued efforts to exert diplomatic pressure and support 
partner nations to follow the money trail left by criminal actors, 
including their increasing use of cryptocurrencies for illicit means.

    Question 11. How will you work with inter-agency stakeholders to 
strengthen INL's cooperation programs with our international partners 
in order to expand efforts to combat financial crimes and money 
laundering?

    Answer. Preventing and combating international financial crime and 
money laundering is vital to protecting U.S. markets and security. If 
confirmed, I will work with my interagency counterparts on this 
critical whole-of-government effort. I understand that INL already 
partners with interagency stakeholders in the Department of Treasury, 
Department of Homeland Security, and Department of Justice to provide 
technical assistance to our international partners. In fact, while with 
the U.S. Coast Guard I saw firsthand how effectively INL taps into 
inter-agency capabilities to strengthen partnerships around the world. 
These bilateral programs provide regulators, financial intelligence 
units, law enforcement, prosecutors, and judges with the skills and 
tools necessary to counter financial crimes and bring the perpetrators 
of financial crimes, including transnational criminal organizations, to 
justice. INL also supports regional anti-money laundering efforts at 
its International Law Enforcement Academies, which rely on interagency 
expertise for leadership and instruction on these topics. If confirmed, 
I will support this assistance and its reliance on the deep expertise 
of INL's interagency partners.

    Question 12. If confirmed, how will you make anti-corruption 
programs a priority?

    Answer. Corruption facilitates transnational crime and undermines 
economic growth. If confirmed, I will prioritize anti-corruption 
programming in three areas: improving a country's ability to impose 
consequences for corruption by strengthening laws and building law 
enforcement capacity; strengthening prevention of corruption through 
advice and training on measures that build cultures of integrity and 
mitigates risk; and supporting civil society to build external pressure 
for reform and to provide oversight and accountability.

    Question 13. How will you work to strengthen INL anti-corruption 
programs?

    Answer. I understand that INL's anti-corruption efforts fall into 
three main areas: capacity building programs, visa sanctions, and 
multilateral policy. If confirmed, I will support continued engagement 
in all of these areas and strengthen INL's regional efforts to build 
foreign law enforcement capacity to manage complex, transnational 
issues like asset recovery and foreign bribery and to facilitate 
international legal cooperation. If confirmed, I will ensure that the 
Department's anti-corruption visa tools are actively used to further 
our anti-corruption foreign assistance objectives. Finally, I will 
encourage INL to leverage international treaties, such as the U.N. 
Convention against Corruption (UNCAC), to build political will for 
reform, identify gaps, and help target our work within each country.

    Question 14. INL has increasingly been willing to privately use 
visa denials and revocations as a tool to deter corruption; will you 
continue and expand these efforts?

    Answer. Yes, if confirmed, I will support continuing and expanding 
efforts to implement corruption-related visa denial and revocation 
authorities, including Presidential Proclamation 7750 and Section 
7031(c) of the Consolidated Appropriations Act of 2018, as well as the 
corruption prong of Global Magnitsky. I view these authorities as 
valuable measures in preventing and combating public corruption, and as 
complementary to the range of other State Department tools. Continued 
enforcement of sanctions and visa denial tools helps impose 
consequences on corrupt foreign officials and deters others from 
committing corrupt acts.

    Question 15. Despite having a strong partnership with the Colombian 
Government in combatting drug trafficking, we have seen a worrisome 
growth of coca cultivation in Colombia since 2013. It is clear that 
developing a permanent counternarcotics strategy is complicated and 
requires a comprehensive approach that equally prioritizes eradication, 
destruction of cocaine laboratories, interdiction of drug trafficking 
shipments, the arrest of traffickers, efforts to combat financial 
crimes and money laundering, and robust programs to consolidate the 
rule of law and democratic governance, as well a sustained strategy to 
advance economic development and provide licit economic opportunities. 
Do you commit to working with our Colombian partners to advance a 
comprehensive strategy that combats all elements of the illicit 
narcotics trade?

    Answer. Colombia has been one of our most important partners in the 
fight against transnational organized crime, narco-trafficking and 
terrorism in the Americas, but I share your alarm regarding the steady 
and signficiant growth in Colombian coca cultivation and cocaine 
production. I understand that at the U.S.-Colombia High-Level Dialogue 
(HLD) on March 1, the United States and Colombia agreed to expand 
counternarcotics cooperation over the next five years, with the shared 
goal of reducing Colombia's estimated cocaine production and coca 
cultivation to 50 percent of current levels by 2023. If confirmed, I 
will prioritize work with Colombia to ensure continued progress in 
reducing coca cultivation and the production of cocaine as agreed to at 
the HLD, including through enhanced eradication, interdiction, 
alternative development, and operations to dismantle narcotrafficking 
organizations. Given the near-term presidential elections in Colombia, 
if confirmed, my goal will be to have robust and early engagement on 
these issues with the new administration there.

    Question 16. What do you plan to do to address some of the broader 
problems that are complicating our counternarcotic efforts in Colombia 
like a lack of state presence in vulnerable regions of Colombia and a 
dearth of viable economic opportunities?

    Answer. Making significant progress on expanding the presence of 
security and civilian agencies to vulnerable regions is essential to 
Colombia's ability to reverse growth in coca cultivation and cocaine 
production and to continuing to improve security and governance more 
broadly. U.S. assistance plays a key role in supporting this effort. 
The United States, through INL and others, currently works in Colombia 
with all levels of government, the armed forces, and the private sector 
to extend government presence, confront illegality, and encourage 
licit, sustainable development. If confirmed, I will continue to work 
with the Colombian Government to support the expansion of capable 
government services, security, and economic opportunities throughout 
the country.

    Question 17. Do you commit to working in partnership with USAID to 
expanding and strengthening alternative development programs in 
Colombia?

    Answer. Yes. If confirmed, I commit to working in close partnership 
with USAID to ensure alternative development efforts are closely linked 
with supply reduction efforts to sustainably reduce illicit cultivation 
and production in rural areas. Developing licit livelihoods is a 
critical part of a whole-of-government approach to combating coca 
cultivation and cocaine production in Colombia.

    Question 18. Do you commit to work with the U.S. Departments of the 
Treasury and Justice to prioritize combating financial crimes as part 
of our engagement with Colombia, including increasing money laundering 
prosecutions and asset forfeiture cases?

    Answer. If confirmed, I will work with the U.S. Departments of the 
Treasury and Justice to prioritize efforts to combat financial crimes. 
I commit to sustaining and advancing the State Department's ongoing 
efforts to train and mentor Colombian judicial officials and money 
laundering investigators to expand their institutional capacity to 
combat money laundering, increase asset forfeiture proceedings, build 
networks with international counterparts, and successfully prosecute 
illicit finance cases.

    Question 19. How do you plan to work with our partners in Colombia 
to more aggressively target financial crimes?

    Answer. Colombia is an essential partner in the fight against 
financial crimes, which fuel narcotrafficking and other forms of 
illicit activity in the Americas. If confirmed, I will continue the 
Department's efforts to build Colombia's capacity to combat money 
laundering and other financial crimes, pursue forfeiture, and 
effectively manage seized assets in order to target criminal networks 
and crucial business facilitators, with the goal of disrupting and 
dismantling their organizations. I will also encourage continued 
collaboration between the Department of the Treasury, the Department of 
Justice, and the U.S. interagency to target the financial crimes of 
Colombia-based criminal organizations.

    Question 20. The Department of State's 2017 International Narcotics 
Control Strategy Report on Money Laundering and Financial Crimes 
identifies 19 Caribbean countries on the ``Major Money Laundering'' 
list. As highlighted by the report, these countries act as transit hubs 
for illicit drugs, arms, and money. It is clear that these countries 
lack the institutional capacity to combat drug trafficking and 
associated crimes like money laundering. How will you help build law 
enforcement capacity throughout the Caribbean to reduce drug 
trafficking and money laundering?

    Answer. I understand that reducing drug trafficking and money 
laundering throughout the Caribbean are key goals of INL programs under 
the Caribbean Basin Security Initiative (CBSI), which builds law 
enforcement and counternarcotics capacity and promotes criminal justice 
sector reform throughout the Caribbean. If confirmed, I look forward to 
continuing the work of CBSI counternarcotics programs to build partner 
countries' ability to detect and disrupt transnational organized crime, 
including money laundering and arms and narcotics trafficking. If 
confirmed, I will also continue to support INL's CBSI financial crimes 
and money laundering programs, which build partner countries' capacity 
to prevent and disrupt financial crimes through training and advising 
on the implementation of regulations to address money laundering, and 
through the provision of equipment and training for financial crimes 
investigators.

    Question 21. Haiti is one of the largest single-country INL 
programs in the Western Hemisphere, and it also struggles with 
extremely high-level of corruption. How do you ensure our foreign 
assistance is appropriately spent to advance U.S. interests?

    Answer. I support all efforts to ensure U.S. foreign assistance is 
appropriately spent in any country in which INL works, and if 
confirmed, I look forward to learning more about INL's assistance in 
Haiti to build the capacity of the Haitian National Police (HNP).
    I understand that INL's programming in Haiti is implemented and 
overseen directly by INL personnel at Embassy Port-au-Prince and that 
no INL funds are provided directly to the Government of Haiti. INL 
ensures proper monitoring and oversight of these programs through 
field-based contracting personnel, regular reporting from its 
implementers, and ongoing monitoring by INL. If confirmed, I will 
ensure INL continues to maintain strong oversight of this and all its 
other programs.

    Question 22. Haiti is one of the largest single-country INL 
programs in the Western Hemisphere, and it also struggles with 
extremely high-level of corruption. How do our programs address the 
systemic corruption problem in Haiti?

    Answer. If confirmed, I look forward to being fully briefed on 
INL's efforts to address corruption and accountability in Haiti, which 
is a core focus of INL's work with the Haitian National Police (HNP). 
INL helped stand up the HNP Office of the Inspector General (IG), which 
vetted hundreds of officer files, recommended the dismissal of hundreds 
of personnel for misconduct, established a public complaint hotline, 
and instituted a one-year probationary period for new HNP officers. 
INL-funded subject matter experts work in the office of the HNP 
Director General and IG office to support accountability and 
transparency within the HNP administration. INL also supports the 
U.N.'s Mission for Justice Support in Haiti (MINUJUSTH) with six U.S. 
advisors working in the U.N. Police mission (UNPOLs), focusing on rule 
of law, human rights, and capacity building for the HNP.

    Question 23. The Obama administration designated more than 10 
senior Venezuelan officials under Kingpin sanctions and the Trump 
administration designated the current Vice President of Venezuela under 
Kingpin sanctions. Given INL's role in international narcotics issues, 
will you work through the inter-agency process to ensure that the U.S. 
Government utilizes Kingpin sanctions thoroughly and effectively in 
Venezuela?

    Answer. The Kingpin Act is an effective sanctions tool against 
foreign narcotics traffickers and their organizations operating 
worldwide. If confirmed, I will prioritize the State Department's 
participation in the interagency process, led by the Department of the 
Treasury, to implement the Kingpin Act, including, as appropriate, in 
Venezuela.

    Question 24. Independent analysts have contended that successive 
administrations' funding for democracy and governance programs for 
Africa has not been sufficiently robust. INL plays an important role in 
strengthening anti-corruption, transparency, and rule of law; and yet, 
the administration's FY 2019 request for funds to support INL 
activities represent a 37 percent decrease from FY 2017. How effective 
can we be with such limited funding?

    Answer. The administration's FY 2019 budget request supports the 
President's commitments to make the U.S. Government more efficient by 
streamlining efforts to ensure the effectiveness of U.S. taxpayer 
dollars. I support the administration's budget request for INL, which 
includes programming for anti-corruption, transparency, and rule of law 
work in Africa.
    If confirmed, I will direct INL to continue to prioritize 
programming in countries where U.S. national security interests are 
highest, where political will is high and assistance can be absorbed, 
and where assistance can have a demonstrable impact.

    Question 25. What steps will you take to prioritize this works 
amidst competing global priorities?

    Answer. To prioritize programming in Africa amidst competing global 
priorities, I believe that INL must continue to ensure the country or 
issue aligns with U.S. national security interests and considers 
factors such as the willingness of partners to commit to criminal 
justice and security reform, the expertise that INL can bring, the 
logistical and security environment, and contributions from other 
donors. If confirmed, as I noted in my hearing, I intend to make the 
strongest possible case for INL programs and their contribution to the 
security of our country in the internal budget processes, including 
those INL programs in Africa. INL will make efficient use of resources 
in Africa by targeting assistance to where the highest impact can be 
made, partnerships with donors can be strengthened, and existing 
platforms can be used.

    Question 26. A peaceful future for Afghanistan can only be achieved 
if police forces there are able to effectively and professionally 
ensure civilian security. This will require tackling pervasive 
corruption and reports of human rights abuses by police forces, 
including the sexual abuse and exploitation of boys. What do you see as 
the appropriate role for INL in this regard, and how will you work, if 
confirmed, to promote accountable, effective civilian security forces 
and the rule of law in Afghanistan to undercut the appeal of the 
Taliban's own version of justice delivery?

    Answer. Promoting the rule of law is a core component of INL's 
mission in Afghanistan.
    To my understanding, INL no longer manages a policing program in 
Afghanistan, but does provide small-scale capacity-building support to 
the Ministry of Interior to better investigate criminal cases, 
particularly in the areas of narcotics, corruption, and national 
security. In line with the President's South Asia strategy, INL also 
supports targeted governance reforms in justice sector ministries to 
address corruption and improve service delivery to the Afghan people.
    As a component of its justice sector assistance, I understand that 
INL contributed to the passage of Afghan legislation to criminalize the 
sexual abuse and exploitation of boys. If confirmed, I will press the 
Afghan Government to implement the legislation fully, while ensuring 
that INL continues to work with the Afghan Government to advance the 
rule of law through effective justice sector institutions. This will be 
a long-term effort, but I believe the Afghan Government can make 
strides forward with continued U.S. assistance and engagement.

    Question 27. What role do you see for INL in promoting transitional 
justice and accountability for wartime atrocities in Sri Lanka, to the 
extent that such crimes are to be addressed in the context of the 
country's own judicial system?

    Answer. I understand that INL's efforts in Sri Lanka are focused on 
enhancing the ability of anti-corruption authorities to investigate and 
prosecute public corruption, supporting the implementation of the 
country's Assistance to and Protection of Victims of Crime and 
Witnesses Act, and providing assistance for victims of sexual and 
gender-based violence (SGBV). This work supports accountability for 
wartime atrocities because SGBV victims of the conflict are among the 
assistance recipients. It also builds institutional capacity to protect 
victims and witnesses of crime from coercion. INL is one of several 
entities working to improve capacities in the Sri Lanka justice sector, 
including addressing wartime atrocities. If confirmed, I will consult 
with them on what more INL specifically can do to address gaps in this 
important area.

    Question 28. What role do you see for INL in supporting civilian 
security, rule of law, and respect for human rights in Pakistan, 
particularly areas such as the FATA, Khyber Pakhtunkhwa, southern 
Punjab, and Karachi where societal tensions, criminality, and violent 
extremism are particularly acute?

    Answer. It is my understanding that INL assistance supports 
Pakistan's efforts to combat violent extremism, criminality, and 
sectarian violence in all of its provinces. If confirmed, I will 
continue INL's work to develop and professionalize its police, 
prosecutors, and judges as Pakistan expands civilian policing and 
criminal justice into previously ungoverned areas. I understand that 
INL has already worked with Khyber Pakhtunkhwa province to establish a 
police academy that has graduated over 4,000 police to support civilian 
control and stabilization of a region that has historically harbored 
violent extremists. In Sindh and Punjab provinces, INL has worked with 
officials to incorporate a human rights curriculum into its law 
enforcement training, support women police and gender justice programs, 
and upgrade investigative capabilities and forensics that have been 
credited with reducing Karachi's crime rate.

    Question 29. What scope do you see to work with provincial level 
authorities and with Pakistani civil society groups to these ends?

    Answer. I believe INL is uniquely positioned to have an impact in 
Pakistan because of its long-standing, excellent, and direct working 
relationships with provincial-level partners in Pakistan's four 
provinces. For example, I understand that INL's project to build model 
police stations across Khyber Pakhtunwa Province also builds ties 
between the provincial police and civil society groups that provide 
legal aid services to women and children. If confirmed, I will continue 
INL's close consultations with provincial authorities and civil society 
groups to ensure our assistance is effective and welcome in Pakistan.

    Question 30. What do you see as the appropriate relationship 
between INL and other bureaus/offices at State with equities in the 
rule of law and accountability space, such as DRL and GCJ?

    Answer. I know from my previous service in the Bureau for Western 
Hemisphere Affairs that, if you want to maximixe your effectiveness and 
impact, it is important to draw upon all available expertise and best 
practices to contribute to the Department of State's goal of delivering 
effective assistance focused on the rule of law and accountability. If 
confirmed, I will coordinate closely with DRL and GCJ, particularly 
when considering how State should approach human rights, transitional 
justice, and accountability in the context of criminal justice 
assistance.

    Question 31. What will you do to foster constructive relationships 
with these bureaus/offices, if confirmed?

    Answer. If confirmed, I will continue to foster constructive 
relationships by meeting regularly with my respective counterparts in 
other bureaus and offices and maintaining an atmosphere of mutual trust 
and respect, including drawing from DRL and GCJ's perspectives and 
expertise to inform INL's programmatic efforts. I will also ensure that 
working level officers adhere to the same approach with their peers. I 
understand INL undertakes such outreach already in support of myriad 
programs to ensure coordination of program initiatives and policy 
considerations.

    Question 32. How will you incorporate their input into your 
programmatic efforts?

    Answer. Based on my experience focusing on the Western Hemisphere, 
I believe that effective coordination is essential to maximizing the 
impact of INL's foreign assistance. To this end, if confirmed, I will 
encourage participation of DRL, GJC, and others across the interagency 
involved in policy or programs focusing on criminal justice assistance 
and the rule of law to engage in discussions that mutually enhance our 
foreign policy and assistance goals.

                               __________


     Responses to Additional Questions for the Record Submitted to
           Kirsten Dawn Madison by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, human rights and democracy issues 
have been part of my work. I believe that both are essential components 
of American international leadership. If I had to choose some specific 
moments in my career, I would highlight: 1) A letter to the Guatemalan 
Government insisting that they take action in the investigation of the 
murder of a clergyman that Senator Leahy's staff and I drafted for 
Senators Helms and Leahy. The Guatemalans understood the bipartisan 
message: the U.S. Senate expected their attention to the investigation. 
To my knowledge, these two Senators never did a human rights initiative 
together before or after that one. 2) The work I did at the NSC, along 
with a host of talented people from across the inter-agency, to keep 
Haiti from teetering over the precipice in 2004. Together, we ensured 
that the United States was able to effectively exercise its leadership 
in the U.N. and with other international partners to forestall a civil 
war in Haiti, to secure international support for an initial 
stabilization force and a follow-on Peacekeeping Mission, to help 
establish an interim government, and to support a process in which the 
Haitians were able to pivot back to Constitutional order and begin to 
rebuild. 3) Not once, but twice, the challenging diplomacy my then 
State Department colleague Caleb McCarry (then the Cuba Transition 
Coordinator) and I did to help persuade the EU to maintain its common 
human rights policy on Cuba. With all of the rancor among our European 
counterparts about the tools of American foreign policy, we were still 
able to make the case that there was no distance between us on the 
question of the Cuban people and their democratic aspirations. It came 
at a critical moment, when the Cuban people truly needed international 
solidarity.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. At the USCG, I had an opportunity to contribute to a larger 
institutional effort to improve diversity and saw, first hand, that it 
took engaged leadership at all levels to make progress. I understand 
that the State Department has a strategic plan for diversity and 
inclusion that contains tools and resources for managers including a 
formal mentoring program on both the foreign and civil service sides, 
career counseling, and specific efforts to help create career paths in 
both the foreign and civil service segments of the Department's 
workforce. In addition to tapping into these formal programs, if 
confirmed, I will look for appropriate opportunities to support 
recruitment efforts, as this is where the general trends for the 
agency's personnel pool are established. There is fierce competition 
for talented officers and civil servants during bidding season or when 
there is a civil service position available, so I believe that for the 
bureau to be successful, it is critical for INL to be seen as a 
welcoming and career enhancing place to work for any and all talented 
officers and civil servants. Diversity and inclusion can play an 
important role in achieving this objective. In addition, if confirmed, 
it will be essential that I set an expectation that my senior leaders 
think about how to enhance the work of the bureau by bringing in team 
members who bring different backgrounds, talents, and experiences to 
the table and then drawing them into the policy and program development 
that is the daily work of INL. The requirement that supervisors and 
managers have annual EEO/Diversity Awareness Training is an important 
part of this process.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of International Narcotics and Law 
Enforcement are fostering an environment that is diverse and inclusive?

    Answer. As noted above, if confirmed, it will be my goal to set 
clear expectations that managers and leaders take responsibility for 
ensuring that the bureau is welcoming to foreign service officers and 
civil servants of all backgrounds who wish to serve and that all team 
members are treated appropriately. As part of this, I think it is 
essential to underscore the value of thinking about how the diversity 
of the team, their backgrounds and experiences, can bring different 
strengths to bureau's work and that the onus is on every supervisor to 
ensure that the organization benefits from these strengths. Again, the 
tools available under the Department's strategic plan, including the 
annual training requirement for supervisors and managers, are important 
opportunities to educate the management team and improve their 
leadership capabilities.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. Other than investments in the international mutual funds 
and exchange traded funds disclosed on the SF-278, my husband and I 
have no financial interests to include business, real estate, or 
financial instruments in any country abroad. To the best of my 
knowledge, no immediate family member does either.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Kirsten Dawbn Madison by Senator Todd Young

    Question 1. In your prepared remarks, you note that in previous 
positions you have worked to address the issue of illegal fishing. The 
Center for Strategic and International Studies published a report last 
November entitled, ``Illegal, Unreported, and Unregulated Fishing as a 
National Security Threat.'' Have you reviewed this report? If you have, 
can you speak to the issue of illegal fishing, and what the U.S. can 
and should do about it? If you haven't, will you review it? If 
confirmed, will you work with me on this issue?

    Answer. I look forward to working with you on illegal and 
unregulated fishing issues. I have read the report and some of the 
other good work that CSIS has done on maritime issues. The United 
States is a leader on global maritime issues, recognizing that 
international cooperation on issues like fisheries enforcement, non-
proliferation initiatives, and counter-piracy operations is essential 
to protecting our nation, the sea itself, and those who operate in the 
maritime domain. As the Director of International Affairs and the 
Foreign Policy Advisor to the Commandant (U.S. Coast Guard), I came to 
appreciate how illegal fishing and other maritime crimes connect to our 
national security. Not only can illegal fishing undermine the prospects 
for long-term prosperity in many countries, it also represents a threat 
to maritime rule of law and is part of the stream of transnational 
criminal use of the maritime domain for nefarious purposes.
    As with most transnational issues, the United States is engaged 
multilaterally to build frameworks for cooperation. One of the key U.S. 
objectives to combat IUU fishing is to support the adoption and 
implementation of the Port State Measures Agreement to Prevent, Deter 
and Eliminate Illegal, Unreported and Unregulated Fishing (PSMA). INL 
supports this effort with technical assistance to five PSMA signatory 
countries in the Caribbean and Central America. More broadly, INL 
programs strengthen legislative frameworks, build investigative and 
enforcement functions, enhance prosecutorial and judicial capacity, and 
develop regional cooperation to increase their effectiveness. INL 
offers a course on effectively monitoring, enforcing, and prosecuting 
fisheries violations through its International Law Enforcement 
Academies (ILEA) and has also funded a global network analysis and 
mapping of IUU fishing.
    At the USCG, my team worked with the State Department to strengthen 
the network of maritime enforcement cooperation agreements on illegal 
fishing and other threats. For example, under ship-rider agreements, 
the USCG is able to cross deck enforcement officials from other 
countries, extending their law enforcement authority to cover U.S. 
operations. The U.S. currently has such agreements with 16 countries 
(including China) in the Pacific and off the coast of Western Africa. 
INL is supporting the effort to bring this program to other nations 
through an interagency agreement with the USCG.
    If confirmed, I look forward to being part of a larger conversation 
with you on this issue that draws in the Bureau of Oceans and 
International Environmental and Scientific Affairs (OES) and other 
critical players including the USCG, the National Oceanic and 
Atmospheric Administration (NOAA), and the U.S. Fish and Wildlife 
Service (USFWS).

    Question 2. In October 2017, the Justice Department announced 
indictments of two Chinese nationals for separate alleged conspiracies 
to manufacture and distribute large quantities of fentanyl and other 
opiates in the United States. During President Trump's November 2017 
visit, China further committed to regulate two fentanyl precursor 
chemicals and to discuss regulating fentanyl and all its analogues as a 
broad class of drugs. Is China fully honoring that commitment?

    Answer. It is my understanding that since 2015, we have had good 
counternarcotics cooperation with China, but there is more work to be 
done. If confirmed, I look forward to working with you on to this 
element of the opioids epidemic. China has domestically controlled 143 
synthetic substances, including carfentanil and nine other fentanyl 
analogues at our request. Five of those substances have been controlled 
since the President's November 2017 meeting with President Xi. I am 
told that it will likely take at least a calendar year for China to 
take the necessary steps on domestic legislation to control fentanyl 
analogues as a class. One of my priorities, if confirmed, will be to 
work with Ambassador Branstad to press the Chinese to do more on this 
issue, including through chairing the the U.S.-China Joint Liaison 
Group on Law Enforcement and Cybersecurity Cooperation.

    Question 3. Hizballah possesses a formidable arsenal of missiles 
and represents a grave threat to our ally Israel. Hizballah also is 
helping to prop up Assad in Syria. I understand that the State 
Department, through the bureau you are nominated to lead (INL), trains 
Lebanese law enforcement on issues related to counter-terrorism, anti-
extremism, and anti-narcotics trafficking. Are you aware of this 
program? What is your assessment of the program? What results has this 
program yielded with respect to Lebanese law enforcement agencies going 
after Hizballah?

    Answer. Yes, I am aware of the INL program, which provides basic 
and specialized training for more than two-thirds of Lebanon's Internal 
Security Force (ISF). If confirmed, I look forward to being fully 
briefed on the program and its results. Generally, I understand that 
INL's programming since 2006 targets an increase in the capabilities 
and professionalism of the ISF, Lebanon's national police force, and 
expanding the ISF's abilities to deter criminal and terrorist activity, 
as well as respond to citizens' concerns. Last year, the ISF raided 
several terrorist cells and arrested suspected operatives or 
facilitators, including in August 2017 when they assisted in foiling a 
large ISIS operation aiming to blow up a civilian airliner in 
Australia.
    With regard to your question about Hizballah, I understand that 
part of the administration's strategy to push back on Hizballah inside 
Lebanon is to build up legitimate state institutions such as the ISF. A 
strong, capable and credible state will be better able to undercut 
Hizballah's influence and false narrative for maintaining its arms. 
INL's support for improving the professionalism of the ISF is vital to 
strengthening the credibility and legitimacy of Lebanese state 
institutions, combating internal threats and terrorists, undermining 
Hizballah's influence in internal security, and bolstering Lebanon's 
stability.

    Question 4. What international best practices related to the opioid 
crisis do you believe could improve U.S. policy if adopted?

    Answer. Drug trafficking networks are agile and if governments are 
to be successful in combatting them, we need to work together to 
develop innovative, nimble approaches and share our lessons learned and 
best practices. I understand this work is already underway. For 
example, after the Canadians shared that they had developed canines 
capable of detecting fentanyl, the United States was able to utilize 
this new tool and ultimately export it to Mexico as well.
    If confirmed, I am committed to identifying international best 
practices and working with interagency partners to identify 
opportunities for implementation. The use of the Darknet and 
cryptocurrencies in opioid trafficking are areas that would seem ripe 
for further cooperative learning. I also understand that the European 
Union recently published legislation to accelerate assessment and 
control of new psychoactive substances (NPS), including synthetic 
opioids, which enables a more nimble response--this might be an 
approach we could draw upon domestically.



                               __________


     Responses to Additional Questions for the Record Submitted to
            Kirsten Dawn Madison by Senator Edward J. Markey

    Question 1. Ms. Madison, as I mentioned during our meeting, I 
remain very concerned about the administration's steep proposed budget 
cuts to FY 2019 programs that the Bureau of International Narcotics and 
Law Enforcement Affairs administers to combat the production and 
trafficking of fentanyl and other drugs. Fentanyl was present in more 
than 80 percent of the almost 2,000 opioid overdose deaths in my state 
of Massachusetts last year. This deadly synthetic opioid is being 
trafficked into the United States principally from China and Mexico 
through the mail and consignment carriers. Given its potency, small 
amounts go a long way, so we're talking about easily concealable 
shipments, not bulk quantities, making it difficult identify and 
interdict. How will the administration's budget cuts to the State 
Department and INL, in particular, affect INL's ability to combat the 
production of fentanyl abroad and its trafficking into the United 
States? What is your strategy for stopping the flow of fentanyl into 
the United States and how do you intend to implement it? Will you 
commit to raising the fentanyl issue with China and Mexico, press them 
to crack down, and pledge our cooperation?

    Answer. If confirmed, one of my top priorities for the bureau will 
be reducing the flow of heroin, fentanyl, and other synthetic opioids 
from abroad. I understand INL formulated its fiscal year (FY ) 2019 
budget request to focus resources on priorities articulated by the 
administration, prioritizing combating the opioid epidemic. Despite a 
reduced topline in the FY 2019 request for International Narcotics 
Control and Law Enforcement (INCLE) funding, INL has increased funding 
for countering opioids by focusing on programming that can directly 
help reduce the flow of heroin and fentanyl to the United States. If 
confirmed, I promise to prioritize funding for this critical need and 
work within the Department budget process to advocate for the resources 
needed to combat the flow of synthetic opioids.
    INL programs aim to reduce the supply of illicit opioids and 
strengthen global controls on synthetic drugs and their precursor 
chemicals. If confirmed, I will ensure that INL continues to work with 
key source countries like Mexico and China to crack down on the 
production and trafficking of heroin and illicit fentanyl. I will also 
engage these countries vigorously through existing platforms such as 
the Joint Liaison Group with China and the North American Drug Dialogue 
as well as pursue opportunities to work through multilateral fora to 
increase international cooperation.
    If confirmed, I will ensure that INL also continues to support 
critical efforts to increase information sharing on the trafficking and 
use of opioids, as well as real-time cooperation among law enforcement 
officials. This includes exploring the links among cryptocurrencies, 
the Dark Web, and traffickers, as well as interventions to address 
them. I will also seek enhanced collaboration with the Universal Postal 
Union to expand international capacities to detect and interdict 
fentanyl and other dangerous drugs trafficked by international mail.

    Question 2. Ms. Madison, the President has refused to criticize the 
Duterte Government's use of extrajudicial killings that have resulted 
in the deaths of at least 8,000 Filipino drug users and low-level drug 
dealers. Will you commit to ensuring that U.S. Government assistance, 
programmed through INL, will not be used by murderous regimes as a tool 
of repression?

    Answer. Yes. I understand that INL re-evaluated its programs in the 
Philippines in 2016 due to concerns over reports of extrajudicial 
killings (EJKs) associated with the drug war and, as a result, 
refocused assistance efforts to drug demand reduction, rule of law, 
maritime law enforcement, and limited police training with an emphasis 
on human rights. If confirmed, I will continue a cautious approach and 
closely monitor developments related to the drug war and EJKs of 
suspected drug offenders. I will also ensure that INL continues to 
abide by Leahy vetting rules, which prevent security force personnel 
and units credibly alleged to have been involved in a gross human 
rights violation, including an EJK, from receiving U.S. assistance.

    Question 3. In the 2017 International Narcotics Control Strategy 
Report, the State Department wrote ``The United States recognizes the 
[Philippine Government's] commitment to fighting drugs, but is 
concerned that the Philippine Government's approach raises significant 
concerns relating to human rights and due process.'' But INL's 2018 
report, in contrast to the 2017 report, glosses over these concerns and 
the brutality of Duterte's War on Drugs by merely mentioning that 
``There has been controversy over the conduct of the campaign, with 
accusations of vigilante killings and `extra-judicial killings' 
allegedly conducted by law enforcement, coupled with denials from the 
Philippine Government officials.'' Do you believe that this description 
of ``controversy over the conduct'' of Duterte's brutal campaign 
accurately reflects U.S. values?

    Answer. I share your serious concerns regarding the large number of 
extrajudicial killings associated with the drug war in the Philippines. 
If confirmed, I will continue ongoing efforts to urge our Philippines 
partners to conduct thorough and transparent investigations into 
reports of extrajudicial killings, hold perpetrators accountable, and 
ensure that all investigative and enforcement efforts uphold the rule 
of law. I will also support INL programs that improve drug prevention, 
treatment, and rehabilitation services; strengthen respect for human 
rights; and build capacity of the justice sector to handle criminal 
cases transparently, effectively, and efficiently. If confirmed, I also 
promise to take a close look at the language in next year's 
International Narcotics Control Strategy Report in consideration of 
your question.

    Question 4. Ms. Madison, the Bureau of International Narcotics and 
Law Enforcement Affairs has worked to encourage its partners abroad to 
combat bias-motivated violence on the basis of sexual orientation and 
gender identity in its work with police agencies and law enforcement 
officials. These have been particularly important in countries where 
the police perpetrates violence absent accountability or law 
enforcement fails to document or prosecute human rights violations. In 
El Salvador, for example, the concept of hate crimes was introduced 
into the penal code in 2015, but the law enforcement system-including 
police and the judiciary-have yet to document these crimes. 
Furthermore, in many countries, carrying HIV prevention commodities or 
anti-retroviral is used as a pretext to arrest people who are LGBTI on 
citations of prostitution. How do you intend on working within the 
Bureau to add a human rights lens to policing and law enforcement in 
your role?

    Answer. A focus on human rights is an integral part of modern 
community policing and the rule of law. If confirmed, I will continue 
INL's global work in this area. I understand INL has agreements with 
U.S. municipal police agencies to work directly with our partner 
countries to develop outreach measures, such as specially trained 
liaison offices within police departments to build trust with diverse 
communities and promote information sharing to help police protect 
human and civil rights of citizens. In addition, I understand INL's 
International Law Enforcement Academy (ILEA) instructors incorporate 
human rights into their curricula globally, including at the ILEA in 
San Salvador.

    Question 5. The Bureau of International Bureau of International 
Narcotics and Law Enforcement Affairs, through its guide to gender in 
the Criminal Justice System, has produced a blue-print for law 
enforcement officer training that promotes gender integration in the 
criminal justice system, and integrating gender into INL project design 
and implementation. Will you commit to continuing to integrate gender 
into INL's law enforcement training and project design? Will you commit 
to ensuring that the recipients of INL's programming, both police and 
prosecutors, have additional and sensitivity training so that they can 
successfully investigate and prosecute sexual and gender-based 
violence?

    Answer. Yes. Women play a key role in fighting crime and they 
contribute to a more effective criminal justice system. If confirmed, 
increasing the participation of women in policing and other criminal 
justice professions and implementing programming that supports 
accountability for sexual and gender-based violence will remain a 
priority. For example, I commit to continue incorporating women's 
perspectives into INL's assessments of partner nation criminal justice 
systems to inform project design, the inclusion of promoting women in 
criminal justice professions as part of pre-deployment training for INL 
advisors deploying overseas, and activities aimed at increasing the 
participation of women police in peacekeeping.
    I also commit to continuing training through INL's International 
Law Enforcement Academies (ILEAs), which already offer nearly 30 
specialized courses around the world each year in women's leadership, 
combating sexual and gender-based violence, and trafficking in persons. 
INL's interagency and partner law enforcement agencies train 
participants in modern approaches to investigating and prosecuting 
sexual and gender-based crimes, such as good practices in interviewing 
victims and collecting forensic evidence.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Thomas J. Hushek by Senator Robert Menendez

    Question 1. What tangible progress has the High Level 
Revitalization Forum made in ending the conflict in South Sudan? What 
do we expect to be achieved during the next round of meetings scheduled 
for later this month? Hostilities are ongoing. If there is no 
significant progress towards achieving a cessation of hostilities, and 
no firm agreement on implementation of the peace agreement as a result 
of the next meeting, will the administration continue to support the 
Forum?

    Answer. If confirmed, I look forward to supporting U.S. diplomatic 
efforts to seek a peaceful South Sudan governed by an inclusive and 
legitimate government that takes care of its people. The United States 
is working with its Troika partners (Norway and the United Kingdom), 
the Intergovernmental Authority on Development (IGAD), the African 
Union (AU), the EU, and the United Nations to press the Government of 
South Sudan and other parties to the conflict to reach a negotiated 
political settlement through the IGAD-led High-Level Revitalization 
Forum (HLRF). The HLRF convened in December 2017 and February 2018. In 
December, the parties to the conflict in South Sudan signed the 
Agreement on Cessation of Hostilities, Protection of Civilians, and 
Humanitarian Access. Although there have already been violations of 
that agreement, the United States continues to press the parties to 
fully implement their commitment to stop fighting and work in good 
faith for peace. The United States is making clear to the warring 
parties that the U.S. Government--both unilaterally and in coordination 
with international partners--will hold accountable those who threaten 
the peace, security, or stability of South Sudan. The United States is 
urging IGAD and AU action to impose consequences on those working 
against peace. While useful dialogue has taken place, there is much 
more for the parties to do if the HLRF is to make meaningful and 
sustainable progress towards peace. The United States is encouraging 
the Government of South Sudan and the opposition at the next meeting of 
the Forum to update governance and security arrangements, in order to 
remedy the failures of the 2015 peace agreement (The Agreement on the 
Resolution of the Conflict in the Republic of South Sudan, or ARCSS). 
If the Forum fails to achieve its objectives, the United States and 
others will have to re-assess the most promising mechanisms to pursue a 
negotiated peace for South Sudan.

    Question 2. What next steps will the administration take to try to 
foster a diplomatic solution to the conflict, and what is your role in 
such efforts? How will the absence of a confirmed Assistant Secretary 
of State for African Affairs impact U.S. efforts to achieve a 
sustainable peace?

    Answer. The United States is fully engaged on South Sudan. The U.S. 
Government remains dedicated to working with regional and international 
partners to press South Sudan's leaders to end the current conflict 
that is driving the humanitarian crisis and build the foundation for a 
peaceful future. The United States is working with its Troika partners 
(Norway and the United Kingdom), the Intergovernmental Authority on 
Development (IGAD), the African Union (AU), the EU, and the United 
Nations to press the parties the conflict, including the Government of 
South Sudan, to reach a negotiated political settlement through the 
IGAD-led High-Level Revitalization Forum (HLRF). The State Department, 
other agencies in Washington, the U.S. embassy in Juba, and other U.S. 
embassies in east Africa carefully coordinate on a daily basis our 
engagement with regional and international partners to advance the 
peace process in South Sudan.
    The leadership of the State Department's Bureau of African Affairs 
is fully engaged in working to find a diplomatic solution to the crisis 
in South Sudan. The United States has the largest diplomatic mission in 
South Sudan. The U.S. embassy plays an important role in sharing 
information and coordinating responses to developments. If confirmed, I 
will engage the Government of South Sudan to end the conflict, advocate 
for unhindered humanitarian access and aid-worker safety, and promote 
human rights, democratic governance, and accountability. I will also 
focus on directly engaging with the people of South Sudan to reinforce 
that the United States is a friend and partner to the South Sudanese 
people, and will be in the future. This local engagement in South Sudan 
will also foster key civil society actors and organizations who might 
play an active peace-building role in the current talks or in future 
discussions.

    Question 3. The Government of South Sudan has indicated that it 
plans to hold elections by the end of the year with or without a peace 
agreement. What is the U.S. position on the advisability of holding 
elections? Would any elections be seen as legitimate?

    Answer. The United States has made clear that only a negotiated 
agreement will be acceptable as a means to extend the term of the 
Government of South Sudan. We are encouraging our regional and 
international partners to condemn any unilateral effort by the 
Government of South Sudan to extend its mandate through a premature 
election, legislative action, or other means.
    Widespread violence, displacement, and severe food insecurity in 
South Sudan renders any discussion of elections in the foreseeable 
future an unnecessary diversion from the primary goals of achieving 
peace and reconciliation. If confirmed, I will press South Sudan's 
leaders to first focus on achieving peace in order to create the 
conditions needed to hold credible elections.
    A key goal for the High-Level Revitalization Forum (HLRF) should be 
monitored, effective security arrangements durable enough to stop the 
conflict, improve the human rights and humanitarian situation, and 
support a political process that produces an agreed path to credible 
elections.

    Question 4. What progress has been made towards establishing the 
Hybrid Court for South Sudan as called for in the 2015 Agreement on the 
Resolution of the Conflict in The Republic of South Sudan? What is the 
United States doing to support accountability until the Court is 
established? How is the United States supporting reconciliation 
efforts?

    Answer. I understand that the African Union (AU) continues to work 
with the Government of South Sudan to establish the Hybrid Court for 
South Sudan (HCSS), but progress has been limited. In August 2017, the 
AU and technical representatives of the South Sudanese Government 
drafted legal instruments to facilitate creation of the Court, 
including a draft South Sudan-AU memorandum of understanding (MOU) and 
draft statute to domesticate the Court under South Sudanese law. 
Unfortunately, despite an announcement in February 2018 by First Vice 
President Taban Deng Gai that the Government of South Sudan was ready 
to sign the MOU, the Government has not signed it.
    The United States calls on the Government of South Sudan to sign 
the MOU to establish the Hybrid Court immediately. If confirmed, I will 
support U.S. efforts to press the South Sudanese Government to sign the 
MOU with the AU, live up to the commitment it made in the 2015 peace 
agreement, and make the Hybrid Court a reality. The United States also 
supports efforts to collect and preserve internationally credible 
evidence and documentation in support of the Court and other 
transitional justice mechanisms. Atrocity victims in South Sudan have 
waited too long for justice.
    To promote reconciliation, the U.S. Government through USAID is 
supporting a variety of local- and national-level, people-to-people 
dialogue and peacebuilding initiatives. These include capacity-building 
and programmatic support to the South Sudan Council of Churches to 
implement its Action Plan for Peace, an effort to facilitate dialogues 
aimed at building trust and resolving disagreements and advocating for 
peace via radio, the most important medium in South Sudan, and other 
fora. USAID also supports a wide array of grassroots peace and trauma 
awareness initiatives at the local level aimed at reducing tensions 
between and within communities, and building resilience to mitigate 
further division and foster conditions for future reconciliation.

    Question 5. The administration has proposed to eliminate P.L. 480 
funds in the Fiscal Year 2019 budget request, and to cut the 
International Disaster Assistance Account by 14 percent. If enacted, 
what impact would such cuts have on our humanitarian assistance efforts 
in South Sudan?

    Answer. The United States has traditionally been the largest donor 
to humanitarian relief efforts in South Sudan and remains committed to 
the people of South Sudan. If confirmed, I would support continued 
United States' leadership in these efforts. All emergency food 
assistance is requested in FY 2019 through the International Disaster 
Assistance (IDA) account in favor of a more streamlined and efficient 
approach that allows the United States to respond to food crises 
appropriately depending upon the situation on the ground. However, it 
is imperative that the international community share this burden, and 
do more to ensure humanitarian crises are appropriately supported.

    Question 6. What steps will you take to bring an end to onerous 
registration fees and other obstacles the Government is putting in 
place to obstruct the work of those delivering assistance to vulnerable 
South Sudanese?

    Answer. Despite commitments from the Government of South Sudan to 
improve access, humanitarians continue to face challenges reaching 
people in need throughout South Sudan. The United States leads the 
diplomatic community in engaging the Government of South Sudan to 
remove bureaucratic impediments and obstacles to delivery of 
humanitarian assistance, pressing for an end to exorbitant taxes and 
fees, intimidation and attacks on aid workers, and humanitarian access 
denials. The USAID Disaster Assistance Response Team (DART) regularly 
tracks the long list of bureaucratic impediments imposed by the 
Government of South Sudan and their impact on U.S. humanitarian 
partners.
    If confirmed, I will ensure that we closely monitor these fees, 
taxes, and other obstacles that impede the efficient and effective 
delivery of humanitarian assistance to the people of South Sudan. I 
will closely collaborate with other donor governments to exert 
bilateral and multilateral pressure on the Government and other actors 
who obstruct humanitarian assistance. The United States will not 
tolerate efforts by officials from the Government of South Sudan to 
profit from the presence of humanitarian agencies and their programs in 
support of conflict-affected populations throughout the country.

    Question 7. Have conditions around the Protection of Civilian (POC) 
site in Juba improved? Are there still instances of sexual and gender-
based violence in the environs of the POC site? What metrics are being 
used to ascertain whether UNMISS has improved its performance in the 
area of protection of civilians?

    Answer. I understand that conditions around the Protection of 
Civilians (POC) site in Juba have improved since 2016, and look forward 
to assessing this further if confirmed. UNMISS engages in patrols, 
including foot patrols, to implement its mandate to protect civilians. 
UNMISS has also cleared a weapons-free zone around the Juba POC site, 
which has helped maintain security both inside and outside the site. 
While there are reports of sexual and gender-based violence in the 
vicinity of the POC sites, the number of reports has decreased. Sexual-
based violence is being perpetrated by all parties to the conflict-but 
especially by the Government-as a weapon of war, according to the U.N. 
Human Rights Council on South Sudan. The U.N.'s overall data collection 
effort on sexual and gender-based violence is impeded by under-
reporting by the victims themselves, who are often afraid to come 
forward due to fear of retaliation or stigma. In addition, since 
arrival of the Special Representative of the Secretary-General in 2017, 
UNMISS has expanded its presence to areas south of Juba in order to 
fulfill its protection of civilians mandate. In general, the U.S. seeks 
implementation of additional U.N.-wide metrics to measure and assess, 
to agreed-upon standards, the performance of peacekeepers tasked with 
protection of civilians.

    Question 8. In your view, how can the United States better support 
and enable UNMISS's ability to carry out its mandate to protect 
civilians?

    Answer. As penholder of the U.N. Security Council resolution 
governing UNMISS, the United States will continue to shape and support 
a mandate that includes a strong emphasis on protection of civilians, 
both inside the five Protection of Civilian (PoC) sites and through 
robust mobile patrols. The most recent mandate renewal, in March 2018, 
specified that protection of civilians remains the highest priority of 
the UNMISS peacekeeping forces-as it has in the past. It also 
underscored the need to hold UNMISS peacekeepers to high standards of 
performance, and established accountability requirements in this 
regard. If confirmed, I would support U.S. actions to advocate for 
UNMISS security enhancements to PoC sites, such as: increased 
patrolling inside each POC site and more foot patrols around the 
perimeter and surrounding area, including hot spots identified by the 
community and night patrols; more frequent and rigorous weapons 
searches at each PoC site; strategic lighting; improved perimeter 
barriers at each PoC site; and regularly scheduled patrols accompanying 
IDPs collecting firewood near each PoC site, which will provide 
additional protection against sexual and gender-based violence. If 
confirmed, I will work closely with UNMISS leadership in South Sudan to 
achieve its important mandate to protect civilians.

    Question 9. The Embassy ordered the departure of non-emergency 
staff after violence erupted in Juba in 2016. Is the Embassy now fully 
staffed to pre-July 2016 levels with both the Department of State and 
USAID personnel? If not, what are the remaining obstacles?

    Answer. In the aftermath of the July 2016 civil unrest in Juba, 
Post reduced its then 69-person footprint to a 34-person figure under 
Ordered Departure status. As the security situation in Juba stabilized, 
Post gradually returned personnel and currently has a 61-person 
footprint. The Department regularly assesses security conditions and 
staffing levels.

    Question 10. If confirmed, what steps will you take to advocate 
that the Government respect media freedoms?

    Answer. A free press is indispensable for the healthy functioning 
of a democracy. Journalists shine a light on abuses and corruption; 
they counter disinformation and propaganda that spread false 
narratives. If confirmed, I will promote a free, professional, and 
independent press in South Sudan. I will speak out against those who 
would undermine a free press with threats, intimidation, and violence. 
I will advocate for accountability for those who attack journalists or 
independent media institutions.

                               __________


     Responses to Additional Questions for the Record Submitted to
             Thomas J. Hushek by Senator Benjamin L. Cardin

U.S. Commitment to Human Rights

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting and protecting human rights has been a common 
theme throughout my Foreign Service career. After an academic focus on 
human rights during my graduate studies at Columbia University, I 
sought out a posting with the Bureau of Human Rights, Democracy and 
Labor (DRL) for my initial assignment at the State Department. 
Likewise, human rights--in particular, civilian security and atrocities 
prevention--was the focus during my most recent assignment heading the 
Bureau of Conflict and Stabilization Operations.
    Perhaps the most significant impact I made came during my five 
consecutive years working on Afghanistan during the Taliban period, on 
the Afghanistan desk in Washington, and as the refugee coordinator 
based in Islamabad. The Taliban's oppression of women and girls in 
Afghanistan had become the major challenge to the international 
community's resolve to advance women's rights. Many advocacy and aid 
organizations initially took a hard stance opposing any and all 
assistance to Afghanistan, believing that all aid efforts would help 
prop up the Taliban regime. From the Afghanistan Desk, I helped make 
the case for a continuation of a well-coordinated and well-targeted 
program of humanitarian assistance in order to aid the very Afghan 
people whose rights were being trampled by the Taliban. We conducted an 
active program to bring together U.S.-based women's rights advocates 
together with humanitarian workers who had spent time on the ground in 
Afghan communities. Once we set this extended dialogue in motion, we 
started to see that this cross-fertilization of ideas led human rights 
advocates to add nuance to their initial all-or-nothing approach, and 
challenged the humanitarian community to find more effective ways to 
ensure Afghan women and children directly benefitted from the 
programming. Eventually a new consensus emerged, which was reflected in 
unanimous resolutions on the Hill in support of continued efforts to 
aid Afghanistan's women, both in terms of human rights advocacy as well 
as humanitarian programming.
    Later, when I transferred to our embassy in Islamabad as the Afghan 
Refugee Coordinator, I continued to facilitate this active dialogue 
between the human rights and humanitarian communities, and played a key 
role as the U.S. representative in the local U.N. and NGO coordinating 
bodies, designing the most effective interventions possible despite the 
increasingly oppressive Taliban regime. My visit into parts of Taliban-
ruled Afghanistan with two USAID colleagues in early 2001 helped focus 
U.S. Government attention on a growing food security crisis there. The 
increased attention to the humanitarian situation--and the knowledge 
that our assistance could be effectively delivered without propping up 
the Taliban--helped justify the arrival of USAID staff (on the 
Pakistani side of the border) and a commitment by the U.S. military 
following the tragic events of 9/11 that our military response should 
be planned to facilitate rather than hinder the humanitarian efforts in 
Afghanistan.

    Question 2. What are the most pressing human rights issues in South 
Sudan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in South Sudan? What 
do you hope to accomplish through these actions?

    Answer. The human rights situation in South Sudan is deeply 
alarming. The most recent report of the Commission on Human Rights in 
South Sudan detailed serious human rights violations and abuses and 
concluded they may amount to war crimes and crimes against humanity. It 
contains chilling accounts of looting and destruction of homes and 
villages; rape and other forms of sexual and gender-based violence; 
violence against children; and extrajudicial killings on the basis of 
ethnicity. The report also underscores that the situation continues to 
be characterized by impunity.
    If confirmed, I will condemn in the strongest possible terms human 
rights violations and abuses in South Sudan. I will support efforts to 
help end the crisis, establish a just and enduring peace, and foster 
national reconciliation. I will work to ensure accountability, 
including by pressing the Government of South Sudan to sign the 
Memorandum of Understanding with the African Union to establish the 
Hybrid Court immediately.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in South Sudan in 
advancing human rights, civil society and democracy in general?

    Answer. If confirmed, I will face a number of challenges in 
advancing human rights, civil society, and democracy in South Sudan. 
The people of South Sudan have experienced decades of violence, and the 
continuing conflict will perpetuate the risk of further violence and 
atrocities. Parties to the conflict, particularly the Government, have 
committed, and continue to commit, human rights violations and abuses 
with impunity. The Government of South Sudan has harassed, arbitrarily 
arrested or detained, and, in some cases, tortured, journalists, human 
rights defenders, civil society activists, and opposition supporters. 
Government restriction on freedoms of expression, including for members 
of the press, and association constrain democratic debate, civic 
activism, and local voices supporting accountability and justice for 
violations and abuses of human rights.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in South Sudan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, I am committed to meeting with human 
rights, civil society and other non-governmental organizations in the 
United States and with local human rights NGOs in South Sudan.
    If confirmed, I will monitor post's practices to pro-actively 
support the implementation of the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights, in accordance with U.S. 
law.

    Question 5. Will you and your embassy team actively engage with 
South Sudan to address cases of key political prisoners or persons 
otherwise unjustly targeted by South Sudan?

    Answer. Yes. If confirmed, my embassy team and I will actively 
engage with the Government of South Sudan to address cases of key 
political prisoners or persons otherwise unjustly targeted by the 
Government.

    Question 6. Will you engage with the Government of South Sudan on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. If confirmed, I will actively engage with South Sudan 
on matters of human rights, civil rights, and governance as part of our 
bilateral mission.
Conflicts of Interest
    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the South Sudan?

    Answer. My investment portfolio includes companies that have a 
presence in South Sudan. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest, and I will remain 
vigilant with regard to my ethics obligations. I have consulted with 
the State Department Ethics Office and will continue to do so, and I 
will divest my interests in any companies they deem necessary to avoid 
a conflict of interest.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. In leadership positions, overseas and domestic, I have 
actively managed training and assignment opportunities for my staff and 
contributed to recruitment and promotion efforts with an eye toward 
strengthening and increasing the diversity of the State Department. If 
confirmed, I will take the same approach at Embassy Juba, ensuring 
substantive work opportunities are available for the professional 
growth of all embassy personnel, incorporating training opportunities, 
and recruiting a diverse array of personnel for embassy positions.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will use my leadership position at Embassy 
Juba to foster a diverse and inclusive work environment. I will work 
with front-line supervisors at post (and, where appropriate, at 
headquarters or regional offices outside South Sudan) to ensure that 
diversity, fairness, and respect for EEO principles are central 
considerations in efforts to recruit for Embassy positions and to 
assign work responsibilities and provide training opportunities for 
staff. Recognizing the difficult security conditions at post, which 
require officers be unaccompanied by family members and which have led 
to reduction in staffing without a reduction in the workload, I will 
pay special attention to creating a supportive working and living 
environment which fosters the health and well-being of all staff. The 
locally employed staff at the Embassy face particular hardships, 
including security threats to them and their families, and I will 
ensure their needs also receive sufficient attention and resources.



                               __________


     Responses to Additional Questions for the Record Submitted to
                 Thomas J. Hursek by Senator Todd Young

    Question 1. On March 15, the United Nations Security Council 
adopted Resolution 2406. This resolution expressed the Security 
Council's intention to ``consider all appropriate measures...against 
those who take actions that undermine the peace, stability, and 
security of South Sudan.'' More specifically, the Resolution expressed 
the Security Council's ``intention to consider all measures, including 
an arms embargo, as appropriate, to deprive the parties of the means to 
continue fighting. . . . '' On February 2, the United States announced 
it is restricting the export of arms into South Sudan. Do you support 
the administration's decision to impose this arms embargo?

    Answer. I support the U.S. decision in February 2018 to formally 
restrict the export of defense articles and defense services into South 
Sudan in response to the ongoing violence and humanitarian crisis in 
that country.

    Question 3. On March 15, the United Nations Security Council 
adopted Resolution 2406. This resolution expressed the Security 
Council's intention to ``consider all appropriate measures . . . 
against those who take actions that undermine the peace, stability, and 
security of South Sudan.'' More specifically, the Resolution expressed 
the Security Council's ``intention to consider all measures, including 
an arms embargo, as appropriate, to deprive the parties of the means to 
continue fighting. . . . '' On February 2, the United States announced 
it is restricting the export of arms into South Sudan. What problems 
are we seeing with implementation?

    Answer. The U.S. decision in February 2018 to formally restrict the 
export of defense articles and defense services into South Sudan 
formalized the long-standing U.S. practice of reviewing license 
applications on a case-by-case basis for all countries, and denying 
license requests for the export of defense articles and services to 
South Sudan. I am not aware of any problems in the implementation of 
this action.

    Question 3. On March 15, the United Nations Security Council 
adopted Resolution 2406. This resolution expressed the Security 
Council's intention to ``consider all appropriate measures . . .  
against those who take actions that undermine the peace, stability, and 
security of South Sudan.'' More specifically, the Resolution expressed 
the Security Council's ``intention to consider all measures, including 
an arms embargo, as appropriate, to deprive the parties of the means to 
continue fighting. . . . '' On February 2, the United States announced 
it is restricting the export of arms into South Sudan. Do you believe 
the arms embargo would be more effective if it were multilateral?

    Answer. Stopping the flow of arms and ammunition into South Sudan 
from all countries would slow the violence, protect innocent lives, and 
encourage the warring parties to compromise rather than continue to use 
military force to seek political advantage.

    Question 4. On March 15, the United Nations Security Council 
adopted Resolution 2406. This resolution expressed the Security 
Council's intention to ``consider all appropriate measures . . . 
against those who take actions that undermine the peace, stability, and 
security of South Sudan.'' More specifically, the Resolution expressed 
the Security Council's ``intention to consider all measures, including 
an arms embargo, as appropriate, to deprive the parties of the means to 
continue fighting . . . .'' On February 2, the United States announced 
it is restricting the export of arms into South Sudan. How can we 
encourage our key partners to also implement and enforce an arms 
embargo?

    Answer. The United States has stressed the need for a U.N. arms 
embargo in the Security Council and other fora, and pressed members of 
the Security Council, African Governments, and the African Union to 
support a U.N. Security Council Resolution to impose a multilateral 
embargo on arms and related materiel of all types into South Sudan.

                               __________

                              NOMINATIONS

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Gardner, Young, 
Isakson, Menendez, Cardin, Shaheen, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations committee will come to 
order.
    We welcome all of you, and I imagine there will be extended 
families that we will have the opportunity to meet. We thank 
all of you for coming in support of the nominees.
    We will consider the nominations of five individuals to 
serve our nation in very different and important roles: 
Ambassador to the International Atomic Energy Agency and other 
U.N. bodies in Vienna; Deputy Representative at the U.N.; 
Ambassador to several Pacific islands; Ambassador to Hungary; 
and Alternative Executive Director on the Inter-American 
Development Bank.
    We welcome all of you and thank you for your willingness to 
serve.
    First, we have the Honorable Jackie Wolcott, who has 
already served our country in a number of positions, including 
as Representative to the U.N. for Political Affairs, as well as 
positions in the State Department under three different 
Presidents. As U.S. Representative to the Conference on 
Disarmament and Special Envoy for President George W. Bush, she 
led the U.S. delegation to four IAEA Board of Governors 
meetings. We thank you for being here.
    At this crucial time when a historic meeting with North 
Korea is on the horizon and the threat of Iran's nuclear 
program is of utmost importance, it is essential that we have 
someone like Ms. Wolcott with her deep background in diplomacy 
and nuclear issues promoting America's national security 
interests at the IAEA.
    Next we have Jonathan Cohen. Mr. Cohen has served his 
country as a career Foreign Service officer in numerous posts 
all over the world since 1986, including serving as Deputy 
Chief of Mission at Embassy Baghdad. The Deputy Representative 
to the U.N. is the number two position at the U.N., and in this 
capacity, the Deputy Representative represents the United 
States at meetings of U.N. bodies, including the U.N. Security 
Council when the Ambassador to the U.N. is not able to attend. 
Having someone with his knowledge and experience will enhance 
the ability of the U.S. mission to defend our interests at the 
U.N.. I was up there last week, and Ambassador Haley is 
certainly waiting to have you cover for her when she cannot 
attend. I know she is anxious to have you.
    Next we have Joseph Cella as Ambassador to Pacific island 
nations. Strong U.S. engagement in the Pacific islands region 
is important for U.S. economic, diplomatic, and strategic 
interests, particularly as Chinese influence continues to grow 
in the Indo-Pacific. The United States maintains support for 
economic development and good governance in the Pacific islands 
to assist these three democracies. With Mr. Cella's background 
in strategic communications, it is my hope that he will bring 
those skills to bear promoting U.S. interests in the Pacific 
islands.
    Mr. David Cornstein has been nominated to serve as 
America's Ambassador to Hungary at a time when Hungary has put 
policies in place that many find troubling. Mr. Cornstein will 
have the important task of reminding the Government of Hungary 
that its future lies not in return to the dark days of the past 
but in remaining an active member of the community of liberal 
democracies.
    Finally, we have Eliot Pedrosa. Mr. Pedrosa is currently a 
shareholder at the international law firm of Greenberg Traurig 
where he chairs the firm's 40-member Miami litigation 
department and has represented clients around the world. With a 
strong background in international law and commercial 
litigation, he is well qualified to represent the United States 
at the Inter-American Development Bank.
    With that, I will turn it over to our distinguished ranking 
member and my friend, Bob Menendez, for any comments he wishes 
to make.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Congratulations to all of you for your nominations. I look 
forward to our questions of many of you.
    Ms. Wolcott, I have no doubt that your many years at the 
State Department will serve you well when, if confirmed, you 
travel to Vienna to represent the United States at the 
International Atomic Energy Agency. There are a number of 
issues confronting that body, including resource constraints, 
as well as the review of the Iran nuclear agreement, that I 
look forward to having a conversation with you about.
    I am glad we will have a chance to hear from Mr. Cornstein 
today about his views on Hungary--I appreciate that you came by 
and we had a good visit--where a sustained rollback of the rule 
of law and increasing xenophobia pose serious threats to the 
democratic values that undergird our NATO alliance. And it 
bears noting that these threats, if left unaddressed, only play 
into the hands of Vladimir Putin, who seeks to fuel anti-
democratic forces and undermines stability across Europe. I 
hope our exchange today can help illuminate some of the 
specific steps we talked about to engage Prime Minister Orban 
and his government on these issues, if confirmed.
    Mr. Cella, I have a series of questions to discuss with you 
today. I look forward to that.
    Mr. Pedrosa, I recently met with the President of the 
Inter-American Development Bank, Luis Alberto Moreno, for a 
very interesting conversation of what the bank is doing in the 
region. It has a lot on its plate. I look forward to our 
conversation of what you intend to do there.
    Finally, Mr. Cohen, welcome to you. I am a strong supporter 
of the United Nations. It does a lot of good around the world. 
Our national security is strengthened when we are at the table 
at the U.N., and the U.N. is more effective when America leads 
with its values. But the U.N. must do better. It must be more 
effective. It must be more transparent. It must be more 
accountable. And in particular, its anti-Israel bias must end 
once and for all. I look forward to how you would pursue some 
of those things as the number two in charge.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    With that, if you would make your opening comments in the 
order introduced and keep them to about 5 minutes, that would 
be great. Any written materials you have, without objection, 
will be entered into the record. Please feel free to introduce 
any family members or friends who may be here in support of 
your nomination. And with that, if you would begin, we would 
appreciate it.

     STATEMENT OF HON. JACKIE WOLCOTT, OF VIRGINIA, TO BE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE VIENNA 
 OFFICE OF THE UNITED NATIONS, WITH THE RANK OF AMBASSADOR AND 
  TO BE REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE 
               INTERNATIONAL ATOMIC ENERGY AGENCY

    Ms. Wolcott. Thank you, Mr. Chairman, Ranking Member 
Menendez, members of the committee, for the opportunity to 
appear before you today.
    And I am grateful to President Trump for giving me the 
opportunity to again serve our country. If confirmed, it would 
be my honor to lead the men and women of the U.S. mission to 
the U.N. in Vienna and to represent the United States in two 
important bodies, the International Atomic Energy Agency and 
the Vienna Office of the United Nations.
    I would like to acknowledge my wonderful family, friends, 
and colleagues, many of whom are watching these proceedings 
online today and so are here in spirit with me. And I am 
especially grateful to my friend and former colleague, 
Assistant Secretary of State Kevin Moley, who is here today. 
Ambassador Moley and I have worked collaboratively over many 
years in the U.N. context, and his IO Bureau will be my home 
base, if confirmed for these positions.
    My first true job as a young adult began here in the 
Senate, just next door in the Russell Building, working for my 
home State Senator Robert Taft, Jr. That position and my 32-
year Federal Government career has instilled in me a deep 
appreciation for the role of Congress, the value of diplomacy, 
and the critical leadership role that the United States must 
play in multilateral diplomacy. I have served in numerous 
positions in Washington, New York, and Geneva leading U.S. 
efforts in the United Nations, its specialized agencies, and 
our policymaking bureaus in Washington.
    I directed numerous campaigns to get votes from and build 
coalitions with governments around the world in support of our 
national security interests and represented the United States 
in the U.N. Security Council dealing with the full range of 
security challenges. For more than 5 years, I served as Deputy 
Assistant Secretary of State for International Organization 
Affairs, with responsibilities covering a broad span of U.N. 
issues.
    For much of my career, I have engaged in multilateral work 
at various agencies focused on nonproliferation and arms 
control. I have acquired directly relevant professional 
experience dealing with nuclear nonproliferation, peaceful uses 
of nuclear technology, arms control, and challenging security 
issues on behalf of the United States. I was Ambassador to the 
Conference on Disarmament in Geneva and Special Representative 
of the President for Nonproliferation of Nuclear Weapons with 
lead responsibility for the 2005 NPT Review Conference. During 
that time frame, I also led our team in Vienna at several IAEA 
Board of Governors meetings, giving me firsthand experience 
with the issues, dynamics, and procedural rules of that body.
    My most recent executive branch experience was as Special 
Envoy for Nuclear Nonproliferation at the State Department. In 
that role, I led implementation of a presidential initiative to 
stop the spread of sensitive nuclear fuel cycle technologies, 
an issue I know is important to this committee, and promoted 
tangible commitments to the highest standards of safety, 
security, and nonproliferation by emerging nuclear energy 
countries.
    Most recently as Executive Director and now Commissioner of 
the U.S. Commission on International Religious Freedom, I have 
had the opportunity to visit many countries of concern and to 
analyze and report on the horrible persecution of people by 
their own governments. I do not think it mere coincidence that 
several countries that deny citizens basic freedoms are also 
those that challenge international nonproliferation norms and 
commitments.
    If I am confirmed to lead the U.S. Mission in Vienna, I 
look forward to working with the talented State Department and 
interagency team. UNVIE is well positioned and, indeed, tasked 
to advance important U.S. policy in the areas of nuclear 
nonproliferation, safety and security, and strengthening 
international cooperation against many facets of transnational 
organized crime, including drug trafficking, cybercrime, 
terrorism, human trafficking, and wildlife crime.
    Iran, North Korea, and other countries which may be 
undermining the vital goal of nonproliferation remain some of 
the biggest challenges for the international community, 
including at the IAEA. With currently more than 150 missions 
represented at Vienna-based international organizations, if 
confirmed, I am committed to finding new partners and expanding 
coalitions to advance American interests and values. Today's 
threats demand such partnerships.
    In my various roles relating to the U.N., I have always 
pushed for reforms, transparency, and budget accountability. 
The United States contributes more than $300 million annually 
to Vienna-based international organizations. If confirmed, a 
key objective of my job will be to make sure that the U.S. tax 
dollars are being used wisely and effectively to meet today's 
threats, including urgently addressing the opioid crisis 
plaguing our own country, through the work of the U.N. Office 
of Drugs and Crime. My experience has convinced me that the 
U.N. and other international bodies are only as good as their 
member states, and I would plan to be very hands-on in their 
governance. American taxpayers deserve to be well served 
through the work of these agencies, including having more 
Americans appointed to positions within the agencies we support 
so generously.
    Mr. Chairman, I am excited by the prospect of again leading 
our team of experts in Vienna. There clearly are profound 
challenges ahead and there is much critical work to be done. If 
confirmed, I promise to provide my best analysis and advice to 
our executive branch interagency team and to work with this 
committee and Congress to advance and implement policies that 
enhance the safety and security of our country and around the 
world.
    Thank you.
    [Ms. Wolcott's prepared statement follows:]


                  Prepared Statement of Jackie Wolcott

    Thank you Mr. Chairman, Ranking Member Menendez, members of the 
committee for the opportunity to appear before you today. And I am 
grateful to President Trump for giving me the opportunity to again 
serve our country. If confirmed, it would be my honor to lead the men 
and women of U.S. Mission to the U.N. in Vienna and to represent the 
United States in two important bodies, the International Atomic Energy 
Agency and the Vienna Office of the United Nations.
    I would like to take a moment to acknowledge my wonderful family, 
friends, and colleagues, many of whom are watching these proceedings 
online today. I thank them for being here with me in spirit.
    My first true job as a young adult began here in the Senate, just 
next door in the Russell Building, working for my home-state Senator, 
Robert Taft, Jr. That position and my 32-year federal government career 
has instilled in me a deep appreciation for the role of Congress, the 
value of diplomacy, and the critical leadership role that the United 
States must play in multilateral diplomacy. I have served in numerous 
positions in Washington, New York and Geneva leading U.S. efforts in 
the United Nations, its specialized agencies, and our policy-making 
bureaus in Washington.
    In all of these venues, I directed numerous campaigns to get votes 
from and build coalitions with governments around the world in support 
of our national security interests. My experience at the United Nations 
culminated in my service as Alternate Representative for Special 
Political Affairs, where I represented the United States in the U.N. 
Security Council, dealing with the full range of security challenges. 
For more than five years in two different administrations, I served as 
Deputy Assistant Secretary of State for International Organization 
Affairs, with responsibilities covering a broad span of U.N. issues.
    For a major segment of my career I have engaged in multilateral 
work at various agencies focused on nonproliferation and arms control. 
I have acquired directly relevant professional experience dealing with 
nuclear nonproliferation, peaceful uses of nuclear technology, arms 
control, and challenging security issues on behalf of the United 
States. I was the Ambassador to the Conference on Disarmament in Geneva 
and Special Representative of the President for the Nonproliferation of 
Nuclear Weapons with lead responsibility for the 2005 NPT Review 
Conference. During that timeframe I also led our team in Vienna at 
several IAEA Board of Governors meetings, giving me firsthand 
experience with the issues, dynamics and procedural rules of that body.
    My most recent executive branch experience was as Special Envoy for 
Nuclear Nonproliferation at the State Department. In that role I led 
implementation of a presidential initiative to stop the spread of 
sensitive nuclear fuel cycle technologies, an issue I know is important 
to this committee, and promoted tangible commitments to the highest 
standards of safety, security, and nonproliferation by emerging nuclear 
energy countries.
    In my most recent positions as Executive Director and now 
Commissioner of the U.S. Commission on International Religious Freedom, 
I have had the opportunity to visit many countries of concern and to 
analyze and report on the horrible persecution of people by their own 
governments. I do not think it mere coincidence that several countries 
that deny citizens basic freedoms are also those that challenge 
international nonproliferation norms and commitments.
    If I am confirmed to lead the U.S. Mission in Vienna, I look 
forward to working with the talented State Department and interagency 
team.
    UNVIE is well-positioned and indeed tasked to advance important 
U.S. policy in the areas of nuclear nonproliferation, safety and 
security, and strengthening international cooperation against many 
facets of transnational organized crime, including drug trafficking, 
cybercrime, terrorism, human trafficking and wildlife crime. The 
peaceful use of nuclear technology is extremely important to countries 
around the world in the areas of energy, health, nuclear medicine, food 
safety and agriculture with the IAEA playing a key role in that regard.
    Iran, North Korea and other countries which may be undermining the 
vital goal of nonproliferation remain some of the biggest challenges 
for the international community, including at the IAEA. With currently 
more than 150 missions represented at Vienna-based international 
organizations, if confirmed, I am committed to finding new partners and 
expanding coalitions to advance American interests and values. Today's 
threats demand such new partnerships.
    In my various roles relating to the U.N. over many years, I have 
always pushed for reforms, transparency, and budget accountability. The 
United States contributes more than $300 million annually to Vienna-
based international organizations. If confirmed, a key objective of my 
job will be to make sure that U.S. tax dollars are being used wisely 
and effectively to meet today's threats, including urgently addressing 
the opioid crisis plaguing our own country, through the work of the 
U.N. Office of Drugs and Crime. My past experience has convinced me 
that the U.N. and other international bodies are only as good as their 
member states, and I would plan to be very hands-on in their 
governance.
    American taxpayers deserve to be well served through the work of 
these agencies, including having more Americans appointed to positions 
within the agencies we support so generously, as advanced in part by 
the International Gender Champions initiative launched last year in 
Vienna.
    Mr. Chairman, I am excited by the prospect of again leading our 
team of experts in Vienna--from the State Department, Energy 
Department, Nuclear Regulatory Commission as well as our locally 
engaged staff.
    There clearly are profound challenges ahead and there is much 
critical work to be done. If confirmed, I promise to provide my best 
analysis and advice to our executive branch interagency team and to 
work with this committee and Congress, to advance and implement 
policies that enhance the safety and security of our country and around 
the world.
    Thank you.


    The Chairman. Thank you.

STATEMENT OF JONATHAN R. COHEN, OF CALIFORNIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
BE THE DEPUTY REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO 
  THE UNITED NATIONS, WITH THE RANK AND STATUS OF AMBASSADOR 
      EXTRAORDINARY AND PLENIPOTENTIARY, AND TO BE DEPUTY 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA IN THE SECURITY 
COUNSEL OF THE UNITED NATIONS, AND TO BE REPRESENTATIVE OF THE 
    UNITED STATES OF AMERICA TO THE SESSIONS OF THE GENERAL 
                 ASSEMBLY OF THE UNITED NATIONS

    Mr. Cohen. Thank you, Chairman Corker, Ranking Member 
Menendez, Senator Young, Senator Gardner. I am honored to 
appear before you today as the President's nominee to serve as 
Deputy Representative of the United States of America at the 
United Nations. I am grateful to the President and to 
Ambassador Haley for this opportunity.
    Serving our nation as a Foreign Service officer for the 
past 32 years has been a great privilege and never more so than 
now with this opportunity to represent the United States at the 
U.N.
    I want to thank my wonderful wife Lidija and our remarkable 
daughters, Alexandra and Gabriella, for their love and support 
over the years and the many moves. They are watching today's 
hearings from overseas. Their tenacious adaptability and 
patience with me and my calling are in no small part 
responsible for me being here today.
    I also want to thank my Foreign Service mentors and, in 
particular, the Ambassadors, Deputy Chiefs of Mission, and 
Assistant Secretaries with whom I have served.
    Over my 3 decades in the Foreign Service, I have seen many 
ways the U.N. contributes to international peace and security, 
from the deployment of peacekeepers who courageously serve in 
some of the world's most dangerous places from Lebanon to South 
Sudan to Mali, to the operations of organizations such as the 
World Food Program which, with significant U.S. support, is 
providing lifesaving food assistance to millions of people 
affected by famine and food insecurity. The U.N.'s value also 
lies in actions such as the extensive sanctions regime imposed 
on North Korea by the Security Council, in effect banning all 
known North Korean exports and shutting down its lawful 
capacity to earn hard currency abroad. These examples 
demonstrate the critical role the U.N. plays in advancing U.S. 
national interests. The United States has been and must 
continue to be a leader at the United Nations. If confirmed, I 
will energetically contribute to our important leadership in 
all these areas, as well as our work at the U.N. on Iran, 
Syria, Middle East peace, and other issues before the Security 
Council and the General Assembly.
    That being said, I wholeheartedly agree with Senator 
Menendez. The United Nations must reform if it is to be more 
effective. And we need to bring that organization up to 21st 
century standards. Secretary-General Guterres' U.N. reform plan 
is an encouraging, important step in that process. If 
confirmed, I will work tirelessly to ensure that his efforts 
align with U.S. priorities.
    Ambassador Haley has been a strong leader on U.N. reform 
and has been working closely with likeminded countries to push 
for greater accountability and transparency, to reduce 
duplicative structures and mandates, to streamline planning and 
budgetary processes, and to better assess peacekeeping 
operations. If confirmed, I look forward to joining her in 
these efforts to ensure America gets what it pays for at the 
U.N.
    Additionally, the United States is a champion for 
accountability when peacekeepers are accused of sexual 
exploitation and abuse. If confirmed, I will strongly support a 
zero tolerance policy.
    Another area of my focus, if confirmed, will be the fight 
to end the disproportionate and unjust attacks at the U.N. on 
our ally Israel. Throughout the U.N. system, there is a 
persistent anti-Israel bias. This is particularly egregious in 
the Human Rights Council with its standing agenda item 
dedicated to criticizing Israel. If confirmed, I will fight 
this bias at every opportunity and will continue to reinforce 
Israel's efforts to normalize its role in the U.N. and the 
broader international community.
    The United Nations can strengthen America's security, 
prosperity, and international effectiveness and has great 
potential to be an even more effective vehicle for 
international peace and security. If confirmed, I will do my 
utmost to help it realize that potential.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to address you today. I appreciate and value 
this committee's oversight of our efforts at the United Nations 
and, if confirmed, I look forward to working with you and your 
respective staff members on the range of issues on the U.N. 
agenda. Your continued engagement is and will remain an 
important element in our ability to successfully advance 
America's interests at the United Nations.
    I look forward to your questions.
    [Mr. Cohen's prepared statement follows:]


                Prepared Statement of Jonathan R. Cohen

    Thank you, Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee. I am honored to appear before 
you today as the President's nominee to serve as the Deputy 
Representative of the United States of America to the United Nations 
and am grateful to the President and Ambassador Haley for this 
opportunity.
    Serving our nation as a Foreign Service Officer for the past 32 
years has been a great privilege, and never more so than now with this 
opportunity to represent the United States of America at the United 
Nations. I want to thank my wonderful wife Lidija and our remarkable 
daughters Alexandra and Gabriella for their love and support over the 
years and the many moves. Their tenacious adaptability and patience 
with me and my calling are in no small part responsible for me being 
here today. I also want to thank my Foreign Service mentors, and in 
particular, the Ambassadors, Deputy Chiefs of Mission and Assistant 
Secretaries with whom I have served.
    Being nominated for this position is the realization of a dream I 
held from an early age. Growing up in a California family that was not 
internationally oriented, I was launched on my path to the Foreign 
Service through involvement in high school Model United Nations and a 
university career devoted to international relations. I owe a special 
debt of gratitude to two inspirational high school teachers who helped 
equip me with the tools for this path: debate coach and English teacher 
extraordinaire Barbara Carson and Model U.N. advisor and history 
teacher Rome Friesen. The prospect of helping resolve vexing 
international challenges to peace and security inspired me as a teen 
and fueled my academic interests as a university student. Having the 
opportunity to do so in America's service has motivated my professional 
life ever since.
    Throughout my career, I've worked with United Nations 
representatives, agencies and issues at just about every posting. From 
my first assignment in Thailand as a refugee protection officer 
visiting refugee camps and detention facilities along the Lao and 
Cambodian borders and interacting daily with UNHCR, to coordinating on 
aid programs in the West Bank during the first Intifada, to service in 
multiple UNSC capitals advocating U.S. priorities under discussion in 
the Security Council, to work with UNFICYP and the SRSG in Cyprus 
seeking to reunify the divided island into a bi-zonal bi-communal 
federation. Nowhere were the stakes higher or the challenges greater 
than in my most recent overseas tour as DCM in Baghdad where I 
regularly met with the leadership of the U.N. Mission in Iraq, where my 
briefings at the SRSG's monthly meetings for the diplomatic corps 
guaranteed that American views on the political and military situation 
of the country had primacy, and where I helped craft with the U.N. 
Humanitarian Coordinator a high-impact, low-cost stabilization program 
that got over a million IDPs safely home. I have seen the U.N. rise to 
challenges and exceed expectations, delivering impressively on its 
mission to provide peace, security and relief while operating with 
fiscal discipline. In each such case, in my experience, there was an 
essential common element--strong U.S. leadership and involvement. If 
confirmed, I pledge to provide that kind of leadership in all I do at 
USUN.
    Over my three decades in the Foreign Service, I have seen many ways 
the U.N. contributes to international peace and security, from the 
deployment of peacekeepers who courageously serve in some of the 
world's most dangerous places, from Lebanon to South Sudan to Mali, to 
the operations of organizations such as the World Food Program which, 
with significant U.S. support, is providing life-saving food assistance 
to millions of people affected by famine and food insecurity. The 
U.N.'s value also lies in actions such as the extensive sanctions 
regime imposed on North Korea by the Security Council, in effect 
banning all known North Korean exports, and shutting down its lawful 
capacity to earn hard currency abroad. These examples demonstrate the 
critical role the U.N. plays in advancing U.S. national interests. The 
United States has been and must continue to be a leader in the United 
Nations. If confirmed, I will energetically contribute to our important 
leadership in all these areas as well as our work at the U.N. on Iran, 
Syria and Middle East peace, and other issues before the Security 
Council.
    That being said, the United Nations must reform if it is to be more 
effective. We need to bring the organization up to 21st century 
standards. Secretary General Guterres' U.N. reform plan is an 
encouraging, important step in the process. If confirmed, I will work 
tirelessly to ensure that his efforts align with U.S. priorities. 
Ambassador Haley has been a strong leader on U.N. reforms, and has been 
working closely with like-minded countries to push for greater 
accountability and transparency, to reduce duplicative structures and 
mandates, to streamline planning and budgetary processes and to better 
assess peacekeeping operations. If confirmed, I look forward to joining 
her in these efforts to ensure America gets what it pays for at the 
United Nations. Additionally, the United States has been a champion for 
accountability when peacekeepers are accused of sexual exploitation and 
abuse. If confirmed I will strongly support a zero tolerance standard.
    Another area of my focus, if confirmed, will be the fight to end 
disproportionate and unjust attacks on our ally, Israel. Throughout the 
U.N. system, there is persistent anti-Israel bias. This is particularly 
egregious in the Human Rights Council, with its standing agenda item 
dedicated to criticizing Israel. If confirmed, I will fight this bias 
at every opportunity, and will continue to reinforce Israel's efforts 
to normalize its role in the U.N. and the broader international 
community.
    The United Nations can strengthen U.S. security prosperity and 
international effectiveness and be an even more effective vehicle for 
international peace and security. If confirmed, it will be my great 
honor to devote myself to furthering America's efforts at the United 
Nations by contributing to the focused U.S. leadership there with the 
goal of promoting and protecting America's interests and values.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to address you today. I appreciate and value this 
committee's oversight of our efforts at the United Nations and, if 
confirmed, I look forward to working with you and your respective staff 
members on the range of issues on the U.N. agenda. Your continued 
engagement is, and will remain, an important element in our ability to 
successfully advance America's interests at the United Nations.
    I look forward to your questions.


    The Chairman. Thank you. Thank you very much.

   STATEMENT OF JOSEPH CELLA, OF MICHIGAN, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
 AMERICA TO THE REPUBLIC OF THE FIJI ISLANDS, THE REPUBLIC OF 
  KIRIBATI, THE REPUBLIC OF NAURU, THE KINGDOM OF TONGA, AND 
                             TUVALU

    Mr. Cella. Good morning, Chairman Corker, Ranking Member 
Menendez, Senator Gardner, Senator Shaheen. It is a privilege 
to appear before you today as President Trump's nominee to 
serve as the United States Ambassador to the Republic of the 
Fiji Islands, the Republic of Kiribati, the Republic of Nauru, 
the Kingdom of Tonga, and the independent island nation of 
Tuvalu.
    I want to express my gratitude to President Trump for his 
confidence in me and for the opportunity, with your consent, to 
serve and represent the United States of America in what is a 
crucial point in our history with our longstanding Indo-Pacific 
and South Pacific partners.
    I also want to express my gratitude to Vice President Pence 
for his support of my nomination.
    If confirmed, I look forward to working with Secretary of 
State Pompeo and his seasoned team of State Department 
professionals.
    I would like to acknowledge my wife Kristen and my 
children, Francesca, John Paul, Dominic, Rita Rose, Mariana, 
and Anthony. I am grateful for their beautiful, selfless love 
and support. I am also pleased to acknowledge my mother, Janice 
Cella, and my brother, Robert Cella, who are here with us today 
for their love and indefatigable support. I would also like to 
acknowledge my late grandfather, Joseph Cella, and my late 
father, Robert Cella, who are with us in spirit. And just as 
they proudly and honorably served our nation in wearing the 
military uniform during World War I and the Korean War, if 
confirmed, I look forward to serving our nation in the 
diplomatic corps.
    The name of my small company is The Pontifex Group with 
Pontifex'' taken from the Latin ``pons'' and ``fec,'' which 
means bridge builder. Serving as a bridge builder has been a 
calling of mine since my boyhood and is a skill that I have had 
to employ working in the United States Senate and House of 
Representatives and as a businessman and certainly, as you can 
imagine, sometimes as a father to a team of three girls and 
three boys. Should I be confirmed, I will serve as our nation's 
bridge builder to the five island nations, to the team at post, 
and all whom I encounter.
    The island nations are an increasingly important component 
for the strength of our commitment and presence and relations 
in the Indo-Pacific, South Pacific for its free and open 
nature, sustaining democratic principles, the rule of law, and 
market-based economies. It is imperative we lead side by side 
with our allies committed to the region and partners, including 
Australia, Japan, and others in order that a void not be filled 
by others who may not share our commitment to the preservation 
of human freedom and respect for democratic principles.
    If confirmed, there will be four key pillars that will 
guide my service.
    First, directing and maintaining active and regular contact 
with top officials in each island nation and engaging closely 
with the Pacific Islands Forum, the region's premier 
intergovernmental organization based in Suva. My key goals will 
be to further the cultivation and showcasing of democratic free 
market principles rooted in each country's right to chose its 
own sovereign course; fostering vibrant economies through free, 
fair, and reciprocal trade and expansion of tourism; promoting 
and maintaining close partnerships for security and stability 
on issues ranging from free and open passage of all vessels, to 
climate change, and the scourge of human trafficking.
    Second, building and expanding on the successes of the past 
by working with the interagency that advocates the interests of 
American businesses, scholars, tourists, and using people-to-
people diplomacy through a variety of cultural and educational 
exchanges and reminding our allies and partners of our fidelity 
to time-honored principles.
    Third, engaging citizens from all walks of life in each of 
the island nations demonstrating our common principles and 
appreciation for their rich history and diverse culture. As a 
bridge builder, I look forward to interacting with leaders from 
civic societies and the faith communities.
    Lastly, yet of great importance, my prospective colleagues 
at the United States embassy in Fiji who work very hard in 
service to our nation and will be our family. And as with my 
own immediate family, I will work to ensure their safety and 
security at all times.
    It will be a great pleasure to work with an open door and 
side-by-side with the mission team to carry on the tremendously 
effective work in the U.S. diplomatic and consular missions.
    Mr. Chairman, Mr. Ranking Member, Senator Gardner, Senator 
Shaheen, thank you for your thoughtful consideration and the 
opportunity to appear before you today, and I look forward to 
your comments and questions.
    [Mr. Cella's prepared statement follows:]


                   Prepared Statement of Joseph Cella

    Good morning, Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee.
    It is a joy and a high honor to appear before you today as 
President Trump's nominee to serve as the United States Ambassador to 
the Republic of Fiji, the Republic of Kiribati, the Republic of Nauru, 
the Kingdom of Tonga, and the independent island nation of Tuvalu.
    I want to express my gratitude to President Trump for his 
confidence in me and for the opportunity, with your consent, to serve 
and represent the United States of America in what is a crucial point 
in history with our long-standing Indo-Pacific partners.
    I also want to express my gratitude to Vice President Pence for his 
support of my nomination. If confirmed, I look forward to working with 
Secretary of State Pompeo and his seasoned team of State Department 
professionals, particularly those at Mission Fiji, and those at various 
other federal agencies whose missions engage the island nations. If 
confirmed, I will uphold the trust of the American people, and 
faithfully discharge the responsibilities that are vested in this 
Constitutional office.
    Should I be confirmed, I anticipate working in conjunction with 
Prime Minister Bainimarama of Fiji; President Mamau of Kiribati; 
President Waqa of Nauru; His Majesty King Tupou VI and Prime Minister 
Pohiva of Tonga; and President Sopoaga of Tuvalu; and with the members 
of their respective governments.
    My family is integral to who I am, and all that I do, and I would 
like to take a moment to thank them--especially my wife, Kristen, and 
my children, Francesca, John Paul, Dominic, Rita Rose, Mariana, and 
Anthony. Their beautiful, selfless love and support has sustained me in 
all that I have done. And they are ALL ready to serve as public 
diplomats in their own unique ways. They are learning, early on, the 
vital connection of service and citizenship in our great republic.
    I would like to acknowledge my mother, Janice Cella, who is with us 
today, for her love, prayers and indefatigable support. I would also 
like to acknowledge my late grandfather, Joseph Z. Cella, and my late 
father, Robert F. Cella, who are with us in spirit. And just as they 
proudly and honorably served our nation in wearing the military uniform 
during World War I and the Korean War, if confirmed, I look forward to 
serving our nation in the diplomatic corps.
    One of our Founding Fathers, and United States Ambassador, Benjamin 
Franklin, described the characteristics of a diplomat as follows: ``The 
qualities of a diplomat are sleepless tact, unmovable calmness, and a 
patience that no folly, no provocation, no blunders, may shake.''
    My faith, family life, education, and nearly 25 years of 
professional experience in both the private and public sectors, world 
travels, and as a founder and leader of multiple organizations, in 
varied environments, have shaped these characteristics and skills, and 
are critical factors, preparing me to ably serve.
    The name of my small company is The Pontifex Group, with Pontifex 
taken from the Latin pons and fec, which means bridge-builder. The 
nature of a diplomat is one of a bridge-builder. The diplomat either 
builds new bridges, maintains existing bridges, or fortifies those 
bridges in need of greater support. Serving as a bridge-builder has 
been my nature since boyhood and has been a gift that I have employed 
as a husband, father, working in the United States Senate and House of 
Representatives, as a businessman, confidant, and friend. Should I be 
confirmed, I will serve as our nation's bridge-builder to the five 
island nations, to the team at post, and all with whom I encounter.
    The island nations are an increasingly important component for the 
strength of our commitment, presence and relations in the Indo-Pacific; 
for its free and open nature, sustaining democratic principles, the 
rule of law, and market-based economies. It is imperative we lead, side 
by side with our allies committed to the region, including Australia, 
Japan, and others, in order that a void not develop and be filled by 
others who may not share our shared commitment to the preservation of 
human freedom and respect for democratic principles.
    If confirmed, there will be four key pillars that will guide my 
service.
    First, directing and maintaining active and regular contact with 
top officials in each island nation and engaging closely with the 
Pacific Islands Forum, the region's premier intergovernmental 
organization based in Suva, Fiji. My key goals will be the further 
cultivation and showcasing of democratic, free market principles rooted 
in each country's right to choose its own sovereign course; fostering 
vibrant economies through free, fair, and reciprocal trade and 
expansion of tourism; promoting and maintaining close partnerships for 
security and stability on issues ranging from free and open passage for 
all vessels, to climate change and the scourge of human trafficking.
    Second, building and expanding on the successes of the past, by 
working with the interagency that advocates the interests of American 
businesses, scholars, tourists, and using people-to-people diplomacy 
through a variety of cultural and educational exchanges, and reminding 
our allies of our fidelity to time-honored principles.
    Third, engaging citizens from all walks of life in each island 
nation, demonstrating our common principles and appreciation for their 
rich history and diverse culture. As a bridgebuilder, I look forward to 
interacting with leaders from civic societies and the faith 
communities.
    Lastly, yet of great importance: my prospective colleagues at the 
United States Embassy in Fiji who work very hard in service to our 
nation will be our family. And as with my own immediate family, I will 
work to ensure their safety and security at all times.
    It will be a great pleasure to work with an open door and side-by-
side with the mission team to carry on the tremendously effective work 
in the U.S. diplomatic and consular missions.
    Mr. Chairman, Mr. Ranking Member, and distinguished members of the 
committee, thank you for your thoughtful consideration and the 
opportunity to appear before you today, and I look forward to your 
comments and questions.


    The Chairman. Thank you.

STATEMENT OF DAVID B. CORNSTEIN, OF NEW YORK, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                       AMERICA TO HUNGARY

    Mr. Cornstein. Good morning, Chairman Corker, Ranking 
Member Menendez, and distinguished members of the committee. It 
is a tremendous honor to appear before you today as President 
Trump's nominee to be the United States Ambassador to Hungary. 
For me, it is humbling that the President has confidence in me, 
hopefully with your approval, to represent the American people 
in engaging with an important ally in a challenging and 
changing part of the world.
    I would like to thank my loving family who sit behind me 
today. They represent quality over quantity. There are only 
four living relatives in my entire family. The girl I married 
49 years ago, my wonderful wife Sheila. And we have two 
children, one by birth, our son Marc, and one by marriage, our 
loving daughter Natasha. Last but sure not for least, the best 
part of my big family, my grandson Danny, who is 12 years old 
and whom I love beyond belief.
    I would also like to remember my wonderful parents, Fanny 
and Irving, and Sheila's parents, Rose and Morris, and the only 
grandparent I had the privilege of knowing, my Hungarian 
grandmother Sarah. My family's love and support has been a 
constant in every phase of my life.
    During my career, I have had experience in both government 
service and the private sector. In the private sector, I 
started with one leased fine jewelry department in a JC Penney 
store and 40 years later had 1,200 fine jewelry departments in 
practically all of the department stores in the United States. 
Our company also had departments which we operated in England, 
Germany, and France. When I retired from the company, it was 
doing well over a billion dollars in revenue and was listed on 
the NASDAQ exchange.
    In public service during the Giuliani administration, I 
served as the Vice Chair of the Economic Development 
Corporation of the City of New York where we negotiated many of 
the deals that came into the city. During the Pataki 
administration, I served on the boards of Battery Park City and 
The Javitz Convention Center. I also chaired the New York State 
Olympic Commission, which was an 8-year labor of love where we 
tried to bring the 2012 Olympics to New York City. During the 
Bloomberg and Spitzer administrations, I completed my 16-year 
tenure as Chairman of the New York City and State Off-Track 
Betting Corporations. Through these experiences, I learned how 
to accomplish goals by working with city and State governments 
and to find common ground between Republicans and Democrats.
    In addition, I have been an active member of several 
philanthropic boards, including the Marine Corps Law 
Enforcement Foundation, The Federal Law Enforcement Officers 
Foundation, New York Law School, Park East Synagogue, and many 
others.
    If confirmed, I would focus on the following key areas.
    First and foremost, I will encourage Hungarian officials at 
all levels of government to promote American and democratic 
values. The freedom of speech, the freedom of press, the 
freedom of religions are values that should not and cannot be 
comprised.
    If confirmed, I hope to advance our economic interests in 
Hungary. Under Prime Minister Orban, the country's economy is 
doing well. In 2017, GDP grew by over 4 percent and 
unemployment was under 4 percent. Hungary lowered its corporate 
tax rate to 9 percent, and since then has received more than 
$2.5 billion in foreign investment. Although the United States 
is Hungary's largest non-European Union investor, by working 
with the Commerce Department, there certainly is room for 
existing American companies doing business in Hungary to do 
more.
    An extremely important goal I have, if confirmed, is to 
halt the rise of anti-Semitism in Hungary and the region. I am 
a very proud American Jew, and it hurts and disturbs me deeply 
that this cancer continues to grow. I will work diligently with 
Jewish organizations, other religious groups, and the Hungarian 
Government to make sure the Jewish community feels safe and 
secure. I will engage with Hungarian people from all walks of 
life to share this American value of religious freedom, 
protection, and tolerance for all people.
    Mr. Chairman, Mr. Ranking Member, and members of the 
committee, I thank you for the honor of appearing before you 
today, and I look forward to answering your questions.
    [Mr. Cornstein's prepared statement follows:]


                Prepared Statement of David B. Cornstein

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, it is a tremendous honor to appear before you today 
as President Trump's nominee to be the United States Ambassador to 
Hungary. For me, it is humbling that the President has confidence in 
me, hopefully with your approval, to represent the American people in 
engaging with an important ally in a challenging and changing part of 
the world.
    I would like to thank my loving family who sit behind me today. 
They represent quality over quantity. There are only four living 
relatives in my entire family. The girl I married forty-nine years ago, 
my wonderful wife Sheila. We have two children, one by birth -our son 
Marc, and one by marriage--our daughter Natasha. They have been married 
for seventeen years. Last but for sure not least, the best part of this 
big family, my grandson Danny, who is twelve years old and whom I love 
beyond belief. I would also like to remember my wonderful parents, 
Fanny and Irving, and Sheila's parents, Rose and Morris, and the only 
grandparent I had the privilege of knowing, my Hungarian grandmother 
Sarah. My family's love and support has been a constant in every phase 
of my life.
    During my career, I have had experience in both government service 
and the private sector. In the private sector, I started with one 
leased fine jewelry department in a JC Penney store and forty years 
later had twelve hundred fine jewelry departments in practically all of 
the department stores in the United Sates. Our company also had 
departments that we operated in England, Germany, and France. When I 
retired from the company, it was doing well over a billion dollars in 
revenue and was listed on the NASDAQ exchange. I had accomplished what 
I had set out to do and was ready to give back some of what I had 
learned in business to public service.
    During the Giuliani administration, I served as Vice Chair of the 
Economic Development Corporation of New York City, where we negotiated 
many of the deals that came into the city. During the Pataki 
administration, I served on the boards of Battery Park City and The 
Javits Convention Center. I also chaired the New York State Olympic 
Commission, an eight year labor of love to bring the 2012 Olympics to 
New York City. During the Bloomberg and Spitzer administrations, I 
completed my sixteen-year tenure as Chairman of the New York City and 
New York State Off-Track Betting Corporations. I have been an active 
member of several philanthropic boards including The Marine Corps Law 
Enforcement Foundation, The Federal Law Enforcement Officers 
Foundation, New York Law School and Park East Synagogue, among others. 
Through these experiences, I learned how to accomplish goals by working 
with City and State governments and finding common ground between 
Republicans and Democrats.
    I feel confident my past experience in government, business, and 
philanthropy has prepared me for this important opportunity to lead the 
U.S. mission in Hungary. If confirmed to serve as U.S. Ambassador, I 
will work closely with the teams from across the Government to 
strengthen our relationship and focus on the following key areas of our 
alliance.
    First and foremost, I will encourage Hungarian officials at all 
levels of government to advance American interests and to promote 
American and democratic values; the freedom of speech, the freedom of 
press and the freedom of religion are values that cannot and should not 
be compromised.
    I will work closely with the Hungarian Government to address 
collective security concerns. Working together, we can further 
strengthen communication between our law enforcement and 
counterterrorism communities and further global security.
    I hope to advance our economic interests in Hungary. Under Prime 
Minister Orban, the country's economy is doing extremely well. In 2017, 
GDP grew by over four percent and unemployment was under four percent, 
Hungary lowered its corporate tax rate to nine percent, and since then 
has received more than 2.5 billion dollars in foreign investment. 
Although the United States is Hungary's largest non-European Union 
investor, there certainly is room for existing American companies doing 
business in Hungary to do more. We also can have new United States 
companies sell their services and products to Hungary. There are many 
Hungarian companies that should have offices in the United States to 
manufacture and sell their products and services, thereby creating more 
American jobs. I would work with our Commerce department to achieve 
these goals.
    An extremely important goal I have, if confirmed, is to halt the 
rise of anti-Semitism in Hungary and Central and Eastern Europe. I am a 
very proud American Jew and it hurts and disturbs me deeply that this 
cancer continues to grow. I will work diligently with Jewish 
organizations, other religious communities, and the Hungarian 
Government to make sure the Jewish community feels safe and secure. I 
will reach out to the Hungarian people from all walks of life to share 
this American value of religious freedom, protection, and tolerance for 
all people.
    Finally, if confirmed, I will work diligently to lead our mission 
team and to work closely with all agencies to deepen our strong 
alliance with the Hungarian Government.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
thank you for the honor of appearing before you today and I look 
forward to answering your questions.


    The Chairman. Thank you. Thank you very much.

  STATEMENT OF ELIOT PEDROSA, OF FLORIDA, TO BE THE ALTERNATE 
   EXECUTIVE DIRECTOR OF THE INTER-AMERICAN DEVELOPMENT BANK

    Mr. Pedrosa. Good morning, Chairman Corker, Ranking Member 
Menendez, and distinguished members of the Senate Foreign 
Relations committee.
    I am profoundly humbled to appear before this august body 
as President Trump's nominee to represent the United States as 
Alternate Executive Director of the Inter-American Development 
Bank. I want to thank the President and Secretary Mnuchin and 
Under Secretary Malpass for supporting my nomination, and I 
would like to thank each of the members of this committee for 
giving me the opportunity to present my qualifications for your 
consideration as you discharge your important constitutional 
role in providing advice and I hope consent to my nomination.
    Before I continue, I want to thank my family for their love 
and support. My wife Nilda is here, seated one row back, 
standing by my side in this, as in all of my endeavors. She is 
my inspiration, my motivation, and the love of my life.
    Seated next to her is my goddaughter, Addie Foslid, who is 
here with her dad Adam.
    My parents are here as well. My mom and dad, Ines and Elier 
Pedrosa, had the courage to leave behind communist oppression 
in Cuba and risk everything to start literally over in the 
United States. Everything I am and everything I do is because 
of them.
    Lastly, my in-laws could not be here today, but they are at 
home live-streaming this hearing. So I want to thank them as 
well for their support: my mother-in-law, Nilda Rosa; my 
father-in-law Ricardo Rodriguez; and my brother-in-law, Rick 
Rodriguez.
    Mr. Chairman, as you were very kind enough to point out in 
your warm introduction, over my 18 years of legal practice, I 
have represented clients in matters around the world but 
primarily in disputes and other matters within the Americas 
from Mexico to the Caribbean down to the southern cone. This is 
a region that is blessed with incredible promise and 
opportunity. It is a region rich in natural resources and with 
warm, dynamic, diverse people.
    But I have seen firsthand some of the challenges that they 
face. I have seen how weak institutions, unchecked corruption, 
political instability, and economic uncertainty can throttle 
private enterprise and economic development. I am aware that 
too many of our fellow citizens of the Americas are still 
deprived of their basic rights to life, liberty, property, and 
a fair opportunity for prosperity by certain corrupt and 
oppressive governments in the region, by violent criminal 
gangs, and by the crushing weight of hopelessness.
    As Americans, it is in our vital national interest to face 
these challenges and work with our neighbors to create, 
nourish, and sustain prosperous democracies in every corner of 
our shared hemisphere.
    If I am fortunate enough to be confirmed, I will devote 
myself to working in partnership with my colleagues in the 
executive branch and the Congress, especially this committee, 
to ensure that the IDB continues to be an important part of the 
solution to the problems that we face together. I firmly 
believe that American leadership and investment, both public 
and private, can change outcomes in the region for the better, 
and I hope to have the opportunity to work with you and your 
staffs to help achieve that goal.
    Mr. Chairman and Ranking Member Menendez, I thank you again 
for this opportunity to appear before you and the other 
distinguished members of this committee. I look forward to your 
questions.
    And I will finish simply by wishing all of the moms both in 
the room and at home live-streaming an early Happy Mothers Day.
    [Mr. Pedrosa's prepared statement follows:]


                  Prepared Statement of Eliot Pedrosa

    Chairman Corker, Ranking Member Menendez, and members of the Senate 
Foreign Relations committee, I am profoundly humbled to appear before 
this august body as President Trump's nominee to represent the United 
States as Alternate Executive Director of the Inter-American 
Development Bank. I want to thank the President, Secretary Mnuchin and 
Under Secretary David Malpass for supporting my nomination, and I would 
like to thank each of the distinguished members of this committee for 
giving me the opportunity to present my qualifications for your 
consideration as you discharge your important constitutional role to 
advise and, hopefully, consent to this nomination.
    Before I continue, I want to thank my family for their love and 
support. My wife, Nilda is here, by my side in this as in all 
endeavors. She is my inspiration, my motivation, and the love of my 
life. My parents are here as well. My mom and dad, Ines and Elier 
Pedrosa, had the courage to leave behind communist oppression in Cuba 
and risk everything to start over in the United States. Everything I 
am, I am because of them. Lastly my in-laws could not be here today, 
but they are live-streaming this hearing at home. I would like to thank 
them for their support: Nilda Rosa, Ricardo Rodriguez, and my brother-
in-law, Rick Rodriguez.
    Over my 18 years of legal practice I have represented clients in 
matters throughout the Americas from Mexico down to the Southern Cone. 
This is a region blessed with incredible promise and opportunity, rich 
natural resources, and warm, dynamic people.
    But I have seen first-hand some of the challenges they face. I have 
seen how weak institutions, unchecked corruption, political 
instability, and economic uncertainty can throttle private enterprise. 
I am aware that too many of our fellow citizens of the Americas are 
still deprived of their basic rights to life, liberty, property and a 
fair opportunity for prosperity by corrupt and oppressive governments, 
violent criminal gangs, and the crushing weight of hopelessness.
    As Americans, it is in our vital national interest to face these 
challenges and work to help our neighbors create, nourish and sustain 
stable, prosperous democracies in every corner of our shared 
hemisphere.
    If I am fortunate enough to be confirmed, I will devote myself to 
working in partnership with my colleagues, both in the Executive Branch 
as well as the Congress--and especially in this committee--to ensure 
that the IDB continues to be an important part of the solution to the 
problems that we face together. I firmly believe that American 
leadership and sound investment, both public and private, can change 
outcomes in the region for the better, and I hope to have the 
opportunity to work with you and your staffs to achieve that goal.
    Mr. Chairman and Ranking Member Menendez, I thank you again for 
this opportunity to appear before you and the other members of the 
committee, and I look forward to your questions.


    The Chairman. Thank you. Thank you so much.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, I have a letter from the Democratic Leader, 
Senator Schumer, on behalf and recommending and supporting 
David Cornstein's nomination to the Ambassadorship for Hungary. 
I would ask that it be included in the record.
    The Chairman. Without objection.


    [The information referred to can be found on page 55 of 
this transcript.]


    Senator Menendez. Thank you.
    Mr. Cella, let me ask you. How do you view Wikileaks?
    Mr. Cella. I am sorry.
    Senator Menendez. How do you view Wikileaks?
    Mr. Cella. Thank you for the question.
    I do view it as a hostile, non-state actor.
    Senator Menendez. Okay.
    Now, as someone who views it as a hostile, non-state actor, 
on October 12th of 2016, in the middle of a controversy over 
Mr. Trump's comments on the Access Hollywood tape, you released 
a statement citing Wikileaks and claiming that Hillary Clinton, 
her advisors--and I can only assume her Roman Catholic running 
mate--are turning, ``the clock back to the days of the 20th 
century, no Catholics need apply type of discrimination.''
    So as someone who just told me that it is a hostile, non-
state actor--and that actually mirrors to some degree what the 
former Director of the CIA, now the Secretary of State, Mike 
Pompeo, has labeled Wikileaks as a non-state, hostile 
intelligence service that, ``will take down America any way 
they can and find any willing partner to achieve that end''--
why did you find it as an acceptable source to cite?
    Mr. Cella. Thank you, Senator. In no way, shape, or form 
was it meant as an endorsement of Wikileaks or its practices.
    Senator Menendez. But it is used as an endorsement.
    Mr. Cella. It was rather just a remark on the content--the 
material that was in the public domain at the time.
    Senator Menendez. There are a lot of things in the public 
domain, including actions by Russia and others to try to 
subvert our democracy. You would not want to be quoting that. 
Would you?
    Mr. Cella. I understand, Senator, your concern and the 
reference to Wikileaks and given how they have targeted us with 
intentionality, it was done so in the middle of a very hard-
fought, pitched campaign. But based on additional things that 
have emerged--I have read the minority report--I certainly have 
a better understanding of what is involved of Wikileaks----
    Senator Menendez. Let me ask you. Do you know Austin Ruse?
    Mr. Cella. I do know, Austin. Yes, sir.
    Senator Menendez. How do you know him?
    Mr. Cella. He has previously served on the board of the 
National Catholic Prayer Breakfast.
    Senator Menendez. And you were the founder of that 
organization.
    Mr. Cella. I am founder of the National Catholic Prayer 
Breakfast. Yes, sir.
    Senator Menendez. So he was the vice president for a time--
Mr. Ruse. And he said some pretty vile things. He has claimed 
that a priest from the Holy See's U.N. delegation guaranteed 
him, ``absolution if I just took her [meaning Hillary Clinton] 
out, and not on a date.'' He claimed that vicious Russian anti-
LGBTQ laws are part of a noble quest for, ``human rights,'' and 
that, ``the hard left human-hating people that run modern 
universities'' should ``be taken out and shot.'' And that is 
just the tip of the iceberg. I could read a lot more.
    So explain to me how you justify having Mr. Ruse be part of 
the organization that you created, an organization that in and 
of itself, as was described, is certainly worthy. When you 
founded the National Catholic Prayer Breakfast, you described 
it as, ``an annual beacon of hope and an encouragement to 
witness our faith and our love for this country.'' Those are 
very admirable goals.
    Mr. Cella. Yes, sir.
    Senator Menendez. How does that justify having Mr. Ruse 
serve as the vice president of your organization with those 
type of comments?
    Mr. Cella. Thank you for the question, Senator Menendez.
    The National Catholic Prayer Breakfast was founded in 2004. 
It has been a great success in every successive year. Those 
remarks by Mr. Ruse I was unaware of until recently and 
occurred in 2016. And it is not anything that would pour forth 
from my mouth.
    Senator Menendez. You never heard him say these things?
    Mr. Cella. No.
    Senator Menendez. Really?
    Mr. Cella. Yes, sir.
    Senator Menendez. He has not been shy about advertising his 
opinions. He has claimed that homosexuals, ``want to win our 
children over for their nefarious causes that come from the 
very pits of hell.'' He has said that LGBTQ activists are, 
``almost pure evil.'' He has said that the federal workplace 
protections for LGBTQ people, ``they don't even have to know 
how to type as long as they have lopped off''--and I am not 
going to go through the rest of it--``or to at least wear 
dresses.'' You never heard any of that.
    Mr. Cella. I never have, Senator Menendez.
    Senator Menendez. That is pretty remarkable for the person 
who is the vice president of your organization. You never heard 
any of that.
    Mr. Cella. He is no longer the vice president of the 
organization. He has been off the board for many years. And 
those are his words and not mine, nor do I support them.
    Senator Menendez. Let me ask you this to finish this line 
of questioning. Do we have your commitment--this committee--
that those who may be LGBTQ employees in your embassy or United 
States citizens who request assistance from your embassy will 
be treated with the dignity and respect that any citizen of the 
United States deserves?
    Mr. Cella. 100 percent, Senator. And the first pillar of 
the National Security Strategy, as you well know, involves 
upholding the dignity of the individual. And by my nature since 
I can remember, I have treated every individual with great 
worth, dignity, and respect that they deserve, and that would 
continue in my post, if I am confirmed with your consent.
    Senator Menendez. I have plenty of other questions, Mr. 
Chairman, for the rest of the panel. I will wait for the second 
round.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Welcome all.
    Ms. Wolcott, in President Trump's speech yesterday 
regarding the Iran nuclear agreement, he emphasized, quote, the 
deal's inspection provisions lack adequate mechanisms to 
prevent, detect, and punish cheating and do not even have the 
unqualified right to inspect many important locations, 
including military facilities. Ms. Wolcott, to ensure Iran's 
compliance with the nuclear agreement, has the IAEA inspected 
in person any military bases in Iran?
    Ms. Wolcott. Senator Young, thank you for that question.
    I am not sure. They do not really make public sometimes 
where they go. I think there are questions about the military 
sites a lot of people still have, for sure.
    Senator Young. Do you know whether the IAEA has formally 
asked to inspect military sites within Iran?
    Ms. Wolcott. I do not know.
    Senator Young. Well, if they have not, then it seems to me 
we cannot be confident that Iran has fully complied with the 
agreement. Would you draw the same conclusion?
    Ms. Wolcott. Director General Amano has said on more than 
one occasion that there were no sites that should be off 
limits. Whether or not that means they intend to go to those 
sites, I do not know. I would think it would be important to do 
so given the past history of Iran's nuclear program.
    Senator Young. You would agree with my observation that if 
military sites--if we do not know whether or not the military 
sites have, in fact, been inspected for nuclear activity, then 
that creates a distinct possibility that there is nuclear 
activity occurring there that has been undetected and that, in 
turn, creates a threat to American citizens and our allies and 
partners.
    Ms. Wolcott. Senator, I agree with that observation.
    Senator Young. Well, I think I would agree with the 
President, that there is a fundamental flaw in the agreement. 
It is my hope that collectively on this committee and beyond we 
will now work prospectively to try and put the genie back into 
the box, as it were.
    Ms. Wolcott, if you are confirmed as representative of the 
U.S. to the Vienna Office of the U.N., it is my understanding 
your office, though it has a broad portfolio, would work with 
the U.N. Office of Drugs and Crime. Is that correct?
    Ms. Wolcott. That is correct, Senator.
    Senator Young. And the UNODC, as it is called, describes 
itself as the global leader in the fight against illicit drugs 
and international crime. Among other things, UNODC specializes 
in research and analytical work to increase knowledge and 
understanding of drugs and crime issues and expand the evidence 
base for policy and operational decisions.
    Now, my home State, like your home State, of Ohio is being 
decimated in some communities by this opioid crisis. The 
Indiana State Department of Health indicates, according to our 
recent numbers, in 2016 there were 785 drug overdoses involving 
opioids and deaths associated with those overdoses.
    In your prepared statement, you identify urgently 
addressing the opioid crisis as a top priority, and I am really 
encouraged by that.
    Based on your preparation for this nomination and this 
hearing, do you know whether UNODC has identified some best 
practices that could potentially inform our domestic policy 
here in the United States so that we can better confront the 
opioid crisis in States like Indiana?
    Ms. Wolcott. Thank you, Senator.
    The UNODC does a lot of technical work and goes into 
countries and helps them with improving their laws and working 
with investigations and forensic officials and those sorts of 
things. Also an important thing that it does on this opioid 
crisis is to list fentanyls and other drugs on control lists, 
and I think that is a place where we can do more work. I am 
really anxious, if confirmed, to get there to see what more can 
be done because I know our INL Bureau at the State Department 
has been working with UNODC and so has IO for some time. But 
there are a lot of ways I think we can do better at detecting 
and stopping these illicit drugs coming into the country, and 
that is something that UNODC can work with us on and also the 
UPU on the drugs coming through the mail to Mexico and Canada.
    Senator Young. There may be some unrealized opportunities 
with respect to implementing identified best practices by 
UNODC, implementing those best practices here in the United 
States or perhaps working with UNODC to tease out those best 
practices so that all countries can benefit.
    Do I have your commitment to work with my office and others 
on this committee on that front?
    Ms. Wolcott. Absolutely, Senator. I am very anxious to do 
that.
    Senator Young. Thanks so much.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations to all of the nominees today and to your 
families for being willing to consider taking on these 
responsibilities.
    Mr. Cohen, we are facing the largest refugee crisis in 
decades, and we know that pregnancy-related deaths and 
instances of sexual violence increase significantly during 
these crises, especially when people are pushed into huge 
refugee camps. In 2015, the U.N. estimated that 61 percent of 
maternal deaths took place in humanitarian crises and fragile 
settings where health services were not available to women.
    The United Nations Population Fund is the leading provider 
of maternal and reproductive health services and supplies in 
humanitarian emergencies. They often operate in areas where no 
one else is able to or willing to, and they are the leading 
global coordinator around gender-based violence prevention and 
response. Unfortunately, the State Department made a 
determination back in March to withhold funding for UNFPA, and 
the proposal for the fiscal year 2019 budget reflects this 
decision.
    So if we are not going to support UNFPA as they try and 
help women and children in these crises, what should we be 
doing to address the challenges that we are facing with 
refugees around the world?
    Mr. Cohen. Senator, thank you for the question.
    We remain committed to women's empowerment and women's 
issues, including maternal and child health issues, and doing 
work on them through multiple U.N. agencies, including UNICEF, 
WHO, WFP, to name a few.
    Senator Shaheen. And can you tell me how many women that 
those organizations might be able to support compared to UNFPA?
    Mr. Cohen. I would have to look into that for you, Senator.
    As I understand it--and the Kemp-Kasten determination was 
made, as you mentioned, earlier this year--we are legislatively 
required, if such a determination is made, to withhold funding 
from an organization. And the specific reason, as I understand 
it, is that UNFPA was determined to be supporting the Chinese 
Government agency responsible for implementing China's coercive 
family planning practices, including forced sterilization and, 
of course, of abortion.
    Senator Shaheen. And I understand that that has been 
alleged, but in fact in the memorandum of justification for the 
determination regarding the Kemp-Kasten amendment that the 
State Department sent to the Foreign Relations committee, the 
State Department concluded that no such evidence exists.
    I would hope, Mr. Cohen, that you would, in your new 
position, commit to working to reverse the determination that 
UNFPA be denied U.S. funding if you find that that decision was 
made wrongly.
    Mr. Cohen. Thank you, Senator. If confirmed, I will look 
into this matter deeply, and I will get back to you with what I 
am able to find out.
    Senator Shaheen. Thank you very much.
    Mr. Cella, if you are confirmed as Ambassador, you would be 
the Ambassador to a number of small islands in the Pacific who 
will be drastically affected by global climate change and 
rising sea levels. On September 22nd, 2017, the President of 
Kiribati addressed the United Nations General Assembly and 
called for swift global action on climate change.
    In light of the President's decision to withdraw from the 
Paris Climate Agreement, how would you respond to the concerns 
of those islands that you would be Ambassador to about the need 
for collective action to limit global warming and to address 
rising sea levels? And what kind of action should we be 
thinking about if we are not going to be part of the 
international community's effort to address this crisis?
    Mr. Cella. Thank you for your question, Senator Shaheen.
    I am from Michigan. We in Michigan are surrounded by five 
bodies of water containing 84 percent of the fresh water in the 
United States, 21 percent of it in the world. I have worked to 
protect the environment in my professional capacities there as 
a steward and in my capacity as a steward and a bridge builder 
to the Island of Kiribati and other nations that are impacted 
work with them to achieve that, specifically be temporarily 
withdrawn and hope for perhaps some reengagement in the accord 
if the conditions were more favorable to the United States that 
this could mitigate. I think there is a deliberate and 
thoughtful approach presently underway. And I am hoping in the 
meantime to advocate for whatever relief through USAID to shore 
up whatever they may need in terms of water and other fallout 
that they have through flooding as a result of the cyclones. 
But you have my commitment, Senator, to do that very thing and 
work so aggressively.
    Senator Shaheen. So do you believe that global warming is 
happening and that human activity is contributing to it?
    Mr. Cella. Yes, Senator, it is happening. I do believe 
that. Pope Francis, as you know in his encyclical, Laudato Si, 
speaks to this. It delves into it quite extensively, and I 
think it is both human and I think there is some natural 
involvement as well. But I do and in my capacity would work 
with you and the administration to mitigate whatever we might 
however we might do so.
    Senator Shaheen. Thank you. I applaud the Pope for taking 
that action with this encyclical.
    The Chairman. Thank you.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Ms. Wolcott, you made a statement about the $300 million 
being invested in Vienna-based international organizations, and 
that is where the IAEA is based. Is that correct?
    Ms. Wolcott. Yes, Senator, that is correct.
    Senator Isakson. I think in your testimony you talked about 
making sure that money is spent wisely and invested wisely. And 
you specifically mentioned the opioid crisis in the United 
States. What do you think through your appointment to the IAEA 
we could do with some of that money to help the stop the flow 
of opioids or the use of opioids or the abuse of opioids in the 
United States or in the world?
    Ms. Wolcott. Senator, that is a good question.
    Senator Isakson. I was hoping you had a magic answer. 
[Laughter.]
    Ms. Wolcott. I am not sure how much the IAEA is involved. 
Of course, UNODC is. But that is something I promise I will be 
happy to look into and get back to you about.
    Senator Isakson. I was glad you mentioned it in your 
statement and I appreciate you doing so because that is 
something all of us--it is a problem for everybody in the 
world, and it is going to get worse. It is not going to get 
better, maybe more serious. And everybody needs to accept 
responsibility to be a part of the solution. So anytime 
somebody's appointment does not directly address that subject 
but they include it in their remarks, it is something I want to 
concentrate on. I think it is setting a good tone for the 
future because it is a common interest for all of us.
    Mr. Cornstein, do you know who Raoul Wallenberg is?
    Mr. Cornstein. No, Senator, I do not.
    Senator Isakson. Well, I want to help you because it will 
make you very popular in Hungary.
    Mr. Cornstein. All right.
    Senator Isakson. And a lot of other places.
    Raoul Wallenberg was a Hungarian Jew who saved 100,000 
lives----
    Mr. Cornstein. Yes. I am sorry. I do know.
    Senator Isakson. That was not a trick question. Nobody ever 
knows. I am a Swede. Only Swedes really know what Raoul did. 
And unfortunately, he disappeared and it was never really 
proven how he died or where he died although we think it was in 
the Soviet Union.
    But during World War II, he saved 100,000 Hungarian Jews 
from the gas chambers in Nazi Germany. And we have a special 
relationship with the Hungarian people but also the Jewish 
people of the world as the United States of America, and it is 
a great partner of ours. We are soon getting ready to open our 
embassy in Jerusalem, which is a huge issue for the Jewish 
people.
    I really appreciate your statement in your opening remarks 
about being committed to anti-Semitism and seeing to it we do 
everything we can to address it. It is a growing problem in 
Europe. It is not the same problem it was in World War II with 
the Nazis, but some of the organizations that embrace anti-
Semitism are not the kind of people you want to make members of 
the U.N. or any other organization for that matter.
    So as the Ambassador there and as one committed to ending 
anti-Semitism, I hope you will lend America's weight and the 
influence that you have in that position any way you can to 
help the Hungarian people see to it that anti-Semitism is ruled 
out of Hungary and any other Eastern European country.
    Mr. Cornstein. Well, I appreciate your comments, Senator. 
And as I said in my statement, I really want to engage not just 
with the Government but with the Hungarian people. I have found 
in my lifetime, unfortunately, when I have experienced some 
anti-Semitism, the best way to correct that is to be amongst 
the people, get out as much as you can, and show that you are 
the type of individual that they would like to meet and to have 
as a friend.
    Senator Isakson. Well, I can identify with that. I am not 
Jewish, but my last name is Isakson. But I love when people 
come to me later and apologize to me for saying something they 
thought might have offended me. And I wondered why they thought 
that and finally realized one day why they did. So I appreciate 
your awareness of that.
    Mr. Cornstein. With Cornstein, it has never been a problem, 
Senator. [Laughter.]
    Senator Isakson. And it is not with Isakson either.
    That is the rest of my questions. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you so much.
    Senator Cardin?
    Senator Cardin. Well, I want Senator Isakson to know that 
we consider you in our minion. So we will include you.
    Mr. Cornstein, first of all, I appreciate our opportunity 
to visit and your commitment in regards to the human rights 
issues as it relates to Hungary and its current trend. And I 
very much appreciate your statement today very clearly pointing 
out your mission to promote American values that are really 
being challenged today by the current government in Hungary.
    So I just want you to understand that this committee wants 
to work with you. I usually ask every nominee how they are 
going to advance human rights and American values and that we 
will be following up with you.
    I also am on the Helsinki Commission, which is very much 
interested in the issue that Senator Isakson mentioned and the 
rise of anti-Semitism, but also the human rights issues and the 
concern about Hungary, which is a member state of the OSCE and 
their failure to live up to commitments that they made under 
the Helsinki agreement.
    So I look forward to working with you in regards to that.
    Ms. Wolcott, I want to try to understand how we are going 
to proceed. I disagree with the President's decision as it 
relates to pulling out of the Iran nuclear agreement. I think 
it is a mistake for American national security interests. But 
he has done it.
    Now what is the game plan moving forward? And I am trying 
to understand how the United States will participate in the 
IAEA. We are members of the IAEA, but we are not members of the 
Iran nuclear agreement family any longer. We, as I understand 
it, give a great deal of information to the IAEA as it relates 
to Iran's compliance with the nuclear agreement. Now that we 
are no longer a member of that agreement, how do we work with 
the IAEA to make sure that Iran is complying with an agreement 
that we pulled out of? Could you explain that to me?
    Ms. Wolcott. Senator, thank you.
    First, I might just start by saying being outside of the 
Government right now, I have not been in the discussions about 
the strategies developed.
    Senator Cardin. But you understand how the IAEA works.
    Ms. Wolcott. Of course, thank you.
    There are a lot of issues we will be working on with the 
IAEA regardless of--I mean, separate and apart from the Iran 
issue. I do not know what the plan is beyond the sanctions 
right now. I heard publicly today that discussions are going on 
with the Europeans. And I assume we will continue to work 
closely with the IAEA, as we always have. We have a long 
history of not only day-by-day work, but of course, we are the 
largest financial contributor of technical expertise giver, 
intelligence provider to the IAEA. I assume that will continue, 
but I do not have any inside information.
    Senator Cardin. So if I understand correctly, the enforcing 
agency for the Iran nuclear agreement is the IAEA working 
through the United Nations in regards to the enforcement 
information. And they are the entity that requests inspections. 
They are the entity that gives information as to whether Iran 
is in compliance or out of compliance with the agreement. They 
report, as I understand it, to the United Nations. And we are a 
member of the United Nations. We are a member of the IAEA, but 
we are not a member now of the nuclear agreement parties.
    How do you envision your role in Vienna working in the 
IAEA? How do we go forward? The United States is perhaps the 
most important element, particularly in the intelligence field, 
as to what is happening in Iran. Now that we do not have the 
protection of the agreement with our partners and we do not 
have the access in the IAEA to demand enforcement of the 
agreement, how do we proceed?
    Ms. Wolcott. Thank you, Senator.
    The IAEA does the monitoring and verifying but they do not 
really establish compliance. The member states do that. And as 
a member of the board of governors, I assume we would still 
have a say in what is going on with Iran. They have safeguards 
agreements in place. Right now, they are provisionally 
instituting the additional protocol. So there are a lot of 
things still going on outside of the JCPOA with Iran through 
the IAEA. Again, this has been less than 24 hours and I was not 
part of this decision. So I do not know a lot about any 
specific plans, but I assume we would go and still participate 
as we always have. For instance, before there was a JCPOA, we 
were still concerned about Iran. I was back there doing it a 
dozen years ago.
    Senator Cardin. But as I understand, there is particular 
attention--I understand that they report to the board of the 
governors and I also understand they report to the United 
Nations because it is under the United Nations. I fully get 
that. But this is a different protocol than any other country--
Iran with the IAEA. It is different than any other country. And 
additional resources have been made available in order to deal 
with this.
    Without the United States' participation in the agreement, 
do you have a view as to how that will impact our ability to 
have confidence about Iran's nuclear program?
    Ms. Wolcott. Senator, honestly, I think it is too soon for 
me to be able to give a very informed answer on that. This is a 
brand new decision and one I was not involved in. So the only 
thing I would hope for, if confirmed, is that I will have the 
chance to get the guidance as it is going forward. I think 
these things are evolving and developing right now. So I do not 
really have much more I could say about it right now.
    Senator Cardin. Would you commit, if confirmed, to come 
back to this committee either in an open or closed session and 
be able to answer these questions for us?
    Ms. Wolcott. I certainly will, Senator.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you.
    And congratulations to all the nominees.
    Ms. Wolcott, I will pick up there. And I recognize you have 
not been immediately in government. You have made that very 
clear. But we have had outreach from our European allies. We 
have had outreach from the IAEA Director. We have had testimony 
in Armed Services committee hearings by Secretary Mattis, 
public hearings, that have indicated that Iran is in compliance 
with the JCPOA.
    Do you personally have any knowledge to suggest that that 
is not true?
    Ms. Wolcott. I have no specific knowledge that that is not 
true, Senator.
    Senator Kaine. Thank you.
    We have also had testimony both by the Director General of 
the IAEA as he has met with us periodically and similar 
testimony from Secretary Mattis before the Armed Services 
committee recently where they described the inspection regime 
of the JCPOA as very robust, as one of the most robust in the 
world. Do you have any knowledge to suggest that those 
statements are untrue?
    Ms. Wolcott. Senator, I do not have any knowledge of it. I 
know there have been concerns expressed about the military 
sites by various people.
    Senator Kaine. Is it your understanding--it is my 
understanding. I just want to make sure I am right about this--
that the JCPOA has inspection requirements of Iran for 
approximately 25 years that exceed the additional protocol of 
the NPT and then after the 25th year under the agreement, if it 
were still active, Iran would make a permanent commitment to 
follow the NPT? Is that your understanding of the agreement?
    Ms. Wolcott. I believe that is the case, Senator. But it is 
an Iranian commitment.
    Senator Kaine. If the U.S. has walked away from the deal, 
do you think it makes it more likely that Iran might not comply 
with some aspects of the deal?
    Ms. Wolcott. Well, again, I think the concern was not just 
the deal. The deal is one part of it, but they do not give us a 
lot of confidence--Iran does not--by what they are doing 
otherwise. And I think that was why the President wanted to 
look at the intent and made his decision.
    Senator Kaine. And I will just state I understand that that 
is what the President said. And that is why this committee and 
the Congress gave the President significant tools to sanction 
Iran many months ago on these unrelated activities that the 
White House has as yet not used. We have been very puzzled 
about why we have given these additional sanctions tools that 
the White House has chosen not to use and instead blown up a 
deal that our allies and the IAEA says that they are complying 
with.
    But you would agree with me, would you not, that if Iran 
decides to allow fewer inspections, the inspections over and 
above the NPT and the additional protocol, if they take the 
U.S.'s unilateral action as an encouragement to reduce 
transparency in their program, that is not going to be a good 
thing for the U.S. or anybody? Would you not agree with me on 
that?
    Ms. Wolcott. Well, I think it says more about Iran than it 
says about anything, Senator.
    Senator Kaine. How about if I make it real simple? Fewer 
inspections are bad. Would you agree with me on that?
    Ms. Wolcott. I agree, Senator.
    Senator Kaine. Okay.
    Mr. Cohen, good to see you again. We visited in Baghdad 
when I was with you once before. You had had a position in the 
State Department dealing, as I understand, in recent years, 
with Greece, Turkey, and Cyprus. And in that position, you must 
have dealt significantly with the crisis that refugee flows 
impose upon those nations. Am I correct in making that 
assumption?
    Mr. Cohen. Yes, sir.
    Senator Kaine. And you would also agree with me, would you 
not, that the flow of refugees around the world, whether it is 
driven by climate, civil war, disease, terrorism, that tens of 
millions of people, refugees and migrants, is not only a 
humanitarian challenge for the refugees but also imposes 
significant security concerns on nations, including the United 
States? You would agree with me on that.
    Mr. Cohen. Absolutely, Senator.
    Senator Kaine. I am trying to understand why the 
administration in September pulled the United States out of the 
U.N. Global Compact on Migration. It was something that was 
devised as a best practice forum under the leadership of the 
United States in 2016. It was not an incursion on anybody's 
sovereignty. It was an effort to get together and grapple with 
this problem we are discussing and try to find best practices 
and share them.
    Do you understand why the United States, alone among the 
world's nations, decided to pull out of the U.N. Global Compact 
on Migration in December 2016?
    Mr. Cohen. I do not know the answer to that, Senator. But I 
can tell you throughout my career I have worked with refugees 
and with U.N. refugee agencies from my first tour in Thailand 
where I worked with UNHCR to my time in Baghdad to this current 
assignment as the Deputy Assistant Secretary grappling with 
Turkey, which hosts over 3 million refugees, Greece, which is 
bearing a very heavy burden in the aftermath of a financial 
crisis, hosting something like 75,000 refugees.
    Senator Kaine. Your nomination gives me some hope that 
though we may have alone pulled out of this global compact, we 
will have somebody at the U.N. who understands the dimensions 
of this issue. And I am glad you are nominated for the 
position.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Cohen, let ask you. Members of the U.N. Human Rights 
Council include human rights violators such as Cuba, Venezuela, 
China, Saudi Arabia. These undemocratic countries outrageously 
focus on Israel and America while ignoring atrocities committed 
in states like Syria and Iran. The council has passed more 
resolutions condemning Israel than the rest of the countries in 
the world combined. Additionally, it maintains a permanent 
agenda item, item 7, that requires that Israel's behavior is 
raised at every Human Rights Council meeting.
    Will you commit to working to eliminate agenda item 7? And 
how do we best work to rid the United Nations of its 
institutional anti-Israel bias?
    Mr. Cohen. I absolutely commit to that, Senator. It will be 
one of my high priorities, if confirmed.
    We have been working and making some progress in the Human 
Rights Council in reducing the number of anti-Israel 
resolutions. They used to be something like 60 percent of all 
the resolutions that came out of there. It is much lower now. 
We still have a long way to go.
    Part of the challenge is agenda reform, particularly agenda 
item 7, but also consolidating agenda items so that we are not 
being wasteful in that council.
    Another challenge is making sure that the membership is 
more representative of countries that have strong human rights 
records rather than ones that have atrocious ones. And if 
confirmed, I will work hard on that together with Ambassador 
Haley. We are trying hard to get especially small countries 
that have outstanding human rights records to stand for seats 
in the council, and the council will be a better body if we can 
achieve that.
    Senator Menendez. On a different subject matter, are you 
familiar with UNFICYP, the U.N. mission in Cyprus?
    Mr. Cohen. Yes, sir, I am. I was the Deputy Chief of 
Mission in Cyprus from 2008 to----
    Senator Menendez. How do you view that mission?
    Mr. Cohen. It is a critical mission. It has been separating 
forces that were at war since 1964. The mission is as old as I 
am. It is a challenging mission but it is a special mission, 
and it is a mission the Greek Cypriots and the Greeks find it 
extremely important; the Turkish Cypriots and the Turks 
somewhat less so. From my perspective, it has been a vital 
element of keeping the peace of the island.
    Senator Menendez. So in the past, the U.S. Permanent 
Representative at the U.N. has given a hard time to Cyprus 
during the deliberations to continue that mission, often 
connecting the presence of the force to the progress in the 
negotiations. But in my view, this penalizes Cyprus because 
Turkey is the military occupier, and it wants peacekeepers out. 
At a time that Turkey is becoming, from my perspective more 
belligerent in the region, going into the exclusive economic 
zone shared by Israel and Cyprus, and taking a series of other 
actions, including bombing the Kurds that are our allies in our 
fight in Syria, would you commit to being an advocate with 
Ambassador Haley to preserving that mission in the days ahead?
    Mr. Cohen. Yes, Senator. I will commit to working to 
preserve the mission. We are also, though, looking at every 
mandate renewal as it comes up against five principles for 
peacekeeping, one of which is that it support a political 
solution. And I am hopeful, after seeing what has happened on 
the island in the last few weeks, that we may be seeing the 
sparks of a new opening to work toward a political solution.
    Senator Menendez. Yes, I am hopeful too. But our big 
problem here is Turkey. At the end of the day, if Turkish 
Cypriots and Greek Cypriots were left to their own devices, we 
would probably have peace. But Turkey, with its most 
militarized per capita in the world in northern Cyprus, with 
its hostilities in the exclusive economic zone seeking to 
interfere with the international rights of Cyprus and other 
countries, I just do not think we can look away from that 
reality.
    Mr. Cornstein, Hungary is a really important assignment 
because I wish that Prime Minister Orban would remember his 
roots where he came from originally, what he viewed originally.
    Of course, the European Union works by unanimity, and to 
the extent that we have had European Union support to pursue 
our sanctions against Russia for their annexation of Crimea, 
their invasion and continuing occupation of eastern Ukraine, of 
the realities of their attempts to affect elections throughout 
the globe, including ours, when one country breaks away, you 
break away that solidarity.
    So can we receive from you a commitment that you will be 
advocating strongly to the prime minister that he should be 
staying within the international order of the European Union on 
these sanctions until Russia reverts and returns to the 
international order?
    Mr. Cornstein. Thank you for the question, Senator.
    Yes, you have my commitment entirely on that. And I would 
hope that working with the prime minister and also engaging the 
Hungarian people, that they would understand that this is an 
important role.
    Senator Menendez. I have a couple other questions, Mr. 
Chairman. I do not know if other members do.
    The Chairman. You can keep going.
    Senator Menendez. Mr. Pedrosa, you come way ahead of the 
curve here because of your wife is such an exceptional person, 
as I am sure all of the wives and spouses are here. But I 
happen to know her. And so before you testified, you were ahead 
of the curve already. But that does not mean you get off scot-
free.
    So I want to get a sense of what you consider the 
challenges of the agency that you are going to be nominated to, 
particularly vis-a-vis what is happening in the hemisphere 
economically, such as Venezuela, and the challenges of China's 
participation. I know you are not there yet, but you have been 
practicing in the region. Give me a sense of the overview that 
you have in that regard as it relates to the work that the 
Inter-American Development Bank will do in the context of those 
realities.
    Mr. Pedrosa. Thank you, Senator, for the question, and 
thank you, Senator, for your leadership in this area both in 
the region and generally. And thank you, of course, for the 
kind words about my wife. I could not agree with you more.
    Senator Menendez. You are a smart man. [Laughter.]
    Mr. Pedrosa. Thank you, Senator.
    Senator, I think the obvious major challenge in the region 
is Venezuela. And today that challenge is finding a way to 
restore democracy, finding a way to improve and help with the 
humanitarian crisis, notwithstanding the fact that Maduro 
regime is refusing international humanitarian aid. The short-
term problems of tomorrow will breed the destabilization in its 
neighbors caused by the massive humanitarian crisis in 
Venezuela and the mid-term to long-term problem or issue will 
be once democracy is restored, the reconstruction and 
rebuilding of that country.
    As you correctly point out, I am not on the ground at the 
IDB yet, but it is my strong hope that if I am fortunate enough 
to be confirmed, I can be part particularly of that solution to 
that final problem, the reconstruction and rebuilding of that 
country. I think that is critical not only for Venezuelans but 
for the entire hemisphere to have a stable, free Venezuela and 
one that can return to the economic prosperity that that 
country once had.
    Senator Menendez. I would urge you, when you get there, 
which signifies my support of your nomination, that in fact 
looking at China and its engagement in the region is incredibly 
important. They are eating our lunch. And so your institution 
would be very important in trying to counteract American 
interests compared to what is happening with the Chinese in the 
region.
    Finally, Ms. Wolcott, let me ask you. Do you affirm the 
U.S. moratorium on nuclear testing?
    Ms. Wolcott. The administration has said so in its National 
Security Strategy.
    Senator Menendez. And you echo that view.
    Ms. Wolcott. I do. I think the way it was worded is that we 
support the moratorium. We would encourage other countries to 
do so, and the only reason that there would be a test on our 
part would be to verify the safety and effectiveness of the 
arsenal.
    Senator Menendez. Now, at the IAEA, I would assume--and 
correct me if I am wrong--that one of the strongest advocacy 
will be making sure that we have the highest standards, 
particularly as it relates to safeguards agreements. Is that a 
fair statement?
    Ms. Wolcott. Yes, sir.
    Senator Menendez. So is it the United States' policy to 
encourage all states, particularly those with civilian nuclear 
programs, to sign an additional protocol to their safeguards 
agreements with the International Atomic Energy Agency?
    Ms. Wolcott. Senator, in my past experience--I believe it 
is the same now--we have always encouraged all the countries 
around the world to have an additional protocol in force.
    Senator Menendez. And the reason for that is because that 
creates a greater safeguard for the world, as well as for us. 
Is that not true?
    Ms. Wolcott. It gives more access to the IAEA.
    Senator Menendez. And therefore greater security.
    Ms. Wolcott. That is the idea. Yes, sir.
    Senator Menendez. So is it your opinion that the United 
States should insist that Saudi Arabia implement the IAEA 
additional protocol before it enters into a nuclear cooperation 
agreement with them?
    Ms. Wolcott. Sir, my personal view is we should always have 
the highest standards of safeguards and safety, and I would 
always support that.
    Senator Menendez. Which would mean the additional 
protocols.
    Ms. Wolcott. Well, that is my personal opinion.
    Senator Menendez. Well, we will start with that.
    You know, one of the things with appointments of nominees 
is that while obviously you will do whatever the administration 
wants you to do--I understand that, but you can be advocates 
internally for what that should be. And it is my hope, whether 
we are trying to pursue democracy and oppose the xenophobia and 
anti-Semitism in Hungary, whether that is about ending the 
anti-Semitism at the United Nations and finding more human 
rights entities that are not violating the very essence of what 
they are supposed to be pursuing or whether it is the highest 
safety standards, that you are going to be advocates for that. 
So I hope hearing that that is your personal opinion is also 
your advocacy. If you do not win, you do not win. But at least 
I hope that that is what you are doing when you get the job.
    Ms. Wolcott. Thank you, Senator. That is certainly what I 
have done in the past.
    Senator Menendez. All right. Thank you all.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Cornstein, I had the opportunity to visit Hungary last 
fall and to meet directly with a number of officials from the 
Hungarian Government with a bipartisan delegation. And one of 
the examples we heard of the anti-Semitism that you so 
accurately addressed in your opening remarks is the law that 
they have passed with respect to Central European University, 
which the concern is that because of the supporters of that 
university, that Hungary has introduced specific new 
requirements that try to put this institution out of business.
    Will you commit that as Ambassador, you will urge the 
Hungarian officials to reassess their position on this 
university and any other universities that may be in violation 
of their law, which is, as I said, deliberately targeting this 
university because of its support from outside the Government 
and the country?
    Mr. Cornstein. Thank you for that important question.
    I definitely shall and not just for the interests of the 
United States, but more so for the interest of the people in 
Hungary and the administration and economically as well. I 
mean, having all of those students there, their families, their 
friends coming over, it would be in my view a crime to see 
that. And it is not going away. It will move to Vienna most 
likely if it is out of Hungary. So I would encourage the 
Government that this is something that they should maybe take a 
step back, let that university prevail and all learning 
institutions prevail.
    Senator Shaheen. Absolutely. Thank you, and thank you for 
your opening remarks that reference the importance of 
democratic institutions. The backsliding in Hungary is very 
troubling.
    Mr. Cohen, I want to pick up a little bit on Senator 
Menendez's comments about the peacekeeping forces because there 
have been a number of questions raised in various sectors in 
the United States about our support for those peacekeeping 
forces and whether they are really doing the job that we want 
them to do. And while I certainly agree there are issues that 
need to be addressed, one place where I have heard firsthand 
and had a chance to see the impact of U.N. peacekeeping forces 
is in Lebanon where their work with the Lebanese army and 
military has really made a huge difference.
    So can you speak to how important you think it is for us to 
continue to support that peacekeeping force in Lebanon?
    Mr. Cohen. Absolutely. First, let me say something about 
peacekeeping forces in general.
    The tool of U.N. peacekeeping is extremely valuable, 
extremely important. According to a recent GAO study, it is 
about eight times less expensive for us than deploying American 
forces to take care of problems like this. Great global 
problems call for collective action, and international 
peacekeeping through the U.N. gives us a tool, an effective 
tool, to do that. It also gives us a way to share the burden 
and share the costs. And one of the things that we need to do 
at the U.N. is find a more equitable burden-sharing mechanism 
because it is not right that one country bears more than a 
quarter of the costs for international peacekeeping.
    In terms of Lebanon in particular, I know there have been 
concerns about the mission not being able to fulfill its full 
mandate, and that is an ongoing challenge. It is a difficult 
operating environment. But having served in Israel and seen the 
value that the mission there brings to people on both sides of 
the border, I agree with you. It is an important mission and 
one that needs to be supported.
    Senator Shaheen. Thank you.
    Ms. Wolcott, I would like to discuss your work as a 
commissioner on the U.S. Commission on International Religious 
Freedom. New Hampshire is home to an Indonesian community that 
has come to the United States fleeing religious persecution. 
The 2017 International Religious Freedom Report details 
continued violations of freedom of religion throughout 
Indonesia and lists the country as tier 2 in its designations.
    Can you detail some of the instances that led the 
commission to rank Indonesia in the way that you did as not a 
welcoming country for Christians and other religious 
minorities?
    Ms. Wolcott. Thank you, Senator Shaheen.
    Yes. The trend is not good in Indonesia, and that is really 
a big part of it, is they are discriminatory against minority 
religions and Christians. They have blasphemy laws on the books 
that are extremely unfair and frankly like every country that 
has them, they should get rid of them.
    Senator Shaheen. And can you explain for everybody what 
those blasphemy laws are?
    Ms. Wolcott. Thank you.
    Blasphemy laws basically are laws in many countries that 
say somebody can accuse another person of blaspheming the 
Prophet, for instance, and they are arrested and often in jail 
and sometimes even on death row for that. So they are extremely 
egregious laws really.
    Senator Shaheen. And for Christians or religious minorities 
that might have to go to Indonesia, did the commission find 
that there is some reason to believe that they might be in 
danger because of what is happening in the country there?
    Ms. Wolcott. Senator, I am not sure that we determined that 
precisely. I know that we are very concerned about the 
situation there for minorities and Christians. I do not recall 
discussing specifically if Christians went back, if that was 
considered a specific threat. But I would have sympathy for 
folks that were concerned about that.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I want to thank all of you for being here. I have to say I 
think each of you have acquitted yourselves very, very well. I 
am always inspired by people who end up being nominated for 
these positions and the humility that you show and the desire 
to serve our country and the way you prepare for these 
hearings. So thank you, many of you, for your past public 
service. I look forward to all of you being confirmed.
    I know that our office has questioned and met with you 
extensively. And so I have no questions.
    The record will remain open until the close of business on 
Friday. And my sense is you will desire to answer those 
questions promptly, and hopefully you will be to your nominated 
posts very, very soon.
    But thank each of you for your desire to serve our country 
in this way.
    And with that, the meeting is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to
               Jackie Wolcott by Senator Robert Menendez

    Question 1. Does the IAEA have enough funds to verify the mission 
in North Korea?

    Answer. If the IAEA is called upon to play this role in North 
Korea, the United States would work with other member states to ensure 
that the IAEA has the appropriate resources to provide the necessary 
monitoring and verification called for in any agreement.

    Question 2. What do you see as the main challenges facing the IAEA 
in the coming years?

    Answer. As IAEA membership grows and the number of nuclear 
facilities increases, the demands on the IAEA's safeguards resources 
will increase as the amount of material under safeguards continues to 
grow. Another challenge is to maintain political support for the 
Agency's diverse missions, particularly nuclear security, in the face 
of competing priorities and interests of its Member States.

    Question 3. Is it in the national security interest of the U.S. to 
fully fund the Preparatory Commission of the Comprehensive Nuclear Test 
Ban Treaty (CTBTO)?

    Answer. Yes. The President's FY 18 budget fully funds the U.S. 
contribution to the CTBTO Preparatory Commission (PrepCom), of whose 
budget, approximately 85 percent is devoted to developing, operating, 
and maintaining the International Monitoring System and the systems 
which support it, such as the International Data Center. I pledge that, 
if confirmed, I will work with Congress to ensure our support for the 
PrepCom is consistent with U.S. law and supports U.S. leadership on 
nonproliferation issues, including international efforts to ensure our 
ability to detect nuclear tests by North Korea and potentially others 
in the future.

    Question 4. As the nominee to represent the United States at the 
IAEA, what impact do you expect that a U.S. withdrawal from an 
international non-proliferation agreement approved by the United 
Nations Security Council will have on our global non-proliferation 
efforts?

    Answer. U.S. withdrawal from the JCPOA should make clear to all the 
United States commitment to ensuring an effective global nuclear 
nonproliferation regime, rather than continuing to signal that the U.S. 
would compromise on a flawed deal that does not meet the requirements 
of that regime in the long term.

    Question 5. Do you expect it to have a devastating impact on your 
ability to advocate for strong non-proliferation objectives at the 
IAEA?

    Answer. The IAEA recognizes that the United States has long been 
the leading supporter of a strong IAEA. If confirmed, I will work to 
maintain the close, supportive relationship we have long had with the 
IAEA.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Jackie Wolcott by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Deputy Assistant Secretary of State for International 
Organization Affairs, I had lead responsibility for U.S. participation 
in the U.N. Human Rights Commission from 1990-1993, and again in 2003. 
The United States worked to spotlight countries with egregious human 
rights records, including Iran, China, North Korea and others, and to 
support creation of Special Rapporteurs to investigate and report on 
specific countries or situations. I led the campaign in 2003 against 
Libya being elected to Chair the UNHRC. While Libya ultimately was 
elected, the U.S. called for the first ever vote on the chairmanship, 
which precluded Libya's election by acclamation. At the time, this 
effort was applauded by Members of Congress, NGOs, and press worldwide.
    Most recently I was Executive Director of the U.S. Commission on 
International Religious Freedom (USCIRF) for six years, and am just 
completing a two-year term as USCIRF Commissioner. In these positions I 
have advocated for religious minorities and others around the world 
that face persecution because of their beliefs. I personally encouraged 
and was part of the creation of the International Panel of 
Parliamentarians for Freedom of Religion or Belief (IPPFORB), a network 
of legislators who are committed to Article 18 of the U.N. Universal 
Declaration of Human Rights and to advocate for religious freedom 
around the world. At its onset, a handful of parliamentarians met with 
USCIRF and together we developed and launched this effort at the Nobel 
Peace Center in 2014. The network has grown to more than 100 
parliamentarians, representing many religions, political parties, and 
regions around the world.
    As Commissioner, I adopted and advocated for religious prisoner of 
conscience Pastor Nguyen Cong Chinh of Vietnam and his wife, Tran Thi 
Hong, as did some members of Congress and human rights organizations. 
After serving six years of his 11-year sentence, Pastor Chinh was 
released from prison to exile in July 2017, and he and his family are 
now safely living in North Carolina. Pastor Chinh personally presented 
me with a plaque in April 2018 that reads: ``Ambassador Jackie Wolcott 
has made great efforts to mobilize human rights and religious freedom 
in Vietnam. Particularly, the intervention successfully rescued Pastor 
Nguyen Cong Chinh from the prison. VPEF [Vietnamese People's 
Evangelical Fellowship], Pastor Nguyen Cong Chinh & Family are always 
grateful to Ms. Jackie Wolcott and the United States Government.''
    I have written or co-authored op eds and spoken publicly on behalf 
of human rights and religious freedom.

    Question 2. What are the most pressing human rights issues at the 
United Nations? What are the most important steps you expect to take--
if confirmed--to promote human rights and democracy at the U.N.? What 
do you hope to accomplish through these actions?

    Answer. The most pressing human rights concerns in the United 
Nations today include addressing the situations in Iran, Syria, the 
Democratic People's Republic of Korea (DPRK), Burma, South Sudan, and 
the situation in Russian-occupied areas like Crimea. Of course, the 
protection of human rights is deeply intertwined with international 
peace and security, and situations in many countries, including for 
example Syria, are addressed across a wide variety of U.N. entities, 
primarily in New York and Geneva, but less so in Vienna.
    If confirmed, I will work closely with my colleagues at our various 
U.N. missions to vigorously advocate for human rights and to ensure 
that the largely technical work done in Vienna complements our human 
rights efforts at various U.N. venues. I will always push back on any 
anti-Israel bias and incremental attempts to promote Palestinian 
``statehood'' in Vienna-based organizations.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the U.N. in 
advancing human rights, civil society and democracy in general?

    Answer. There are several potential obstacles to addressing human 
rights concerns in the aforementioned crises. A critical step in 
addressing the human rights issues will be encouraging our partners and 
other nations to play constructive roles. As the National Security 
Strategy stated, ``Repressive leaders often collaborate to subvert free 
societies and corrupt multilateral organizations.'' I will remain alert 
to and ready to address any such efforts in Vienna.
    Although human rights resolutions are not run in the Vienna-based 
U.N. bodies, if confirmed, I will coordinate with our missions in New 
York and Geneva to ensure that our work in Vienna complements our human 
rights efforts in the appropriate U.N. venues. And as mentioned in the 
previous response, I will always push back against any anti-Israel bias 
and increased attempts to promote Palestinian ``statehood'' in Vienna 
IOs.

    Question 4. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed one of the first issues I will communicate to 
the Mission staff is my 100 percent commitment to promoting EEO 
principles, diversity and best practices at the Mission, and my 
expectation that each and every supervisor will do the same. I plan to 
foster a work environment that respects and recognizes the role and 
contribution of each employee, and will look consistently for 
development and promotion opportunities for all. I will meet 
individually with each employee, listen actively, ask for input and 
remain accessible to all.

    Question 5. What steps will you take to ensure each of the 
supervisors at the U.S. Mission to the U.N. Vienna offices are 
fostering an environment that is diverse and inclusive?

    Answer. If confirmed, working with my DCM, I will ensure that 
Mission employees have the training they need to carry out their 
responsibilities, including those relating to mentoring, diversity and 
equal employment opportunities for all. This includes mandatory 
Diversity Awareness Training for Managers and Supervisors, and I would 
also be sure that employees are made aware of all opportunities 
available through the State Department, including additional training 
on these issues. I personally will be an active mentor and will lead by 
example.

    Question 6. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Now that the President has withdrawn the United States 
from the Joint Comprehensive Plan of Action, is your expectation that 
the U.S. relationship with the International Atomic Energy Agency will 
change in any way?

    Answer. The IAEA recognizes that the United States has long been 
the leading supporter of a strong IAEA. If confirmed, I will work to 
maintain the close, supportive relationship we have long had with the 
IAEA.

    Question 9. Now that the U.S. is no longer a party to the JCPOA, 
will it be harder for the U.S. to be apprised of Iranian nuclear 
activities?

    Answer. In addition to the IAEA's general responsibility to report 
to the IAEA Board of Governors on compliance of states with their 
safeguards obligations, the IAEA reports issues related to verification 
of Iran's nuclear-related commitments in the JCPOA to the IAEA Board of 
Governors and, as appropriate, the United Nations Security Council. As 
the United States is a member of both bodies, I expect the United 
States to be able to remain apprised of Iranian nuclear activities.



                               __________


     Responses to Additional Questions for the Record Submitted to
                  Jackie Wolcott by Senator Todd Young

    Question 1. Ms. Wolcott, your most recent position was as Executive 
Director and now Commissioner of the U.S. Commission on International 
Religious Freedom. In its 2018 Report, the U.S. Commission on 
International Religious Freedom designated Iran as a ``country of 
particular concern,'' or CPC. By the Commission's definition, that 
means that the regime in Tehran ``engages in or tolerates particularly 
severe religious freedom violations, meaning those that are systematic, 
ongoing, and egregious.'' The Commission concluded that, ``religious 
freedom in Iran continued to deteriorate''--specifically citing the 
persecution of Christians and other religious groups. The Commission 
said, ``Christian converts and house church leaders faced increasingly 
harsh sentencing: many were sentenced to at least 10 years in prison 
for their religious activities. Religious reformers and dissenters 
faced prolonged detention and possible execution.'' What is your 
assessment of religious freedom in Iran?

    Answer. The Iranian Government continues to create a hostile 
atmosphere for members of religious minority groups. Since 1999, Iran 
has been designated a ``Country of Particular Concern'' (CPC) under the 
International Religious Freedom Act of 1998 for engaging in or 
tolerating ``systematic, ongoing, [and] egregious'' violations of 
religious freedom. The Secretary of State most recently re-designated 
Iran as a CPC in December.
    I condemn Iran's ongoing violations of human rights, including 
religious freedom, and call on the Iranian Government to respect its 
own laws and its obligations under international human rights law; to 
cease persecution of members of religious minorities and those whose 
beliefs differ from state doctrine; and to release those jailed for 
political or religious beliefs.
    Many religious groups, including Christians, Jews, Baha'is, 
Zoroastrians, Sunni and Sufi Muslims, as well as Shia Muslims holding 
beliefs at variance with state-approved doctrine, continue to face 
discrimination--including a lack of educational and economic 
opportunities--on the basis of their religious beliefs. They face 
harassment, unjust imprisonment, and varying restrictions on their 
exercise of religious freedom.

    Question 2. As you know, the administration is engaged in high-
level negotiations with the North Korean regime about its nuclear 
program. If a total, verifiable, and irreversible denuclearization 
agreement were reached, the IAEA would likely play a key role in 
verifying North Korea's compliance with any commitments related to its 
nuclear program. Based on your experience and preparation for this 
hearing, what would be the key elements or characteristics of an IAEA 
mission in North Korea that would be sufficiently robust to ensure 
complete North Korean compliance with any nuclear commitments? Do you 
believe that the IAEA is capable of implementing an effective 
inspection regime in North Korea? What reforms or changes are needed to 
ensure that the IAEA would be up to the task in North Korea?

    Answer. The IAEA's strong reputation as an independent nuclear 
verifier would bolster international confidence in the verification of 
any denuclearization agreement with North Korea. Robust IAEA 
verification would require access to all nuclear material, information, 
and locations necessary to implement any IAEA mandate in the DPRK. If 
the IAEA is called upon to play this role in North Korea, and if 
confirmed, I will work with other Member States to ensure that the IAEA 
has the appropriate resources to provide the necessary robust 
monitoring and verification.

    Question 3. The U.S. Mission to International Organizations in 
Vienna (UNVIE) works with several major organizations, including the 
U.N. Commission on International Trade Law. Among the Commission's 
mandates is, ``promoting the codification and wider acceptance of 
international trade terms, provisions, customs and practices.'' Do you 
believe it is in America's interests to implement a strategic and 
multilateral effort to persuade countries who engage in international 
predatory economic and trade practices to comply with ``international 
trade terms, provisions, customs, and practices''? Does that include 
China? If confirmed, as our nation's representative to the Vienna 
Office of the U.N. do you commit to pressing the U.N. Commission on 
International Trade Law to fully fulfill this portion of its mandate-
particularly with respect to China?

    Answer. The United Nations Commission on International Trade Law 
(UNCITRAL) was established to promote the progressive harmonization and 
unification of the law of international trade. Harmonization and 
unification of the law of international trade law provides significant 
benefits to U.S. commercial actors by making consistent various legal 
frameworks governing cross-border transactions. These frameworks 
promote the rule of law and economic growth. Moreover, they make it 
easier for U.S. actors to engage in business abroad.
    Negotiations at UNCITRAL include UNCITRAL members, other countries, 
international organizations and nongovernmental organizations. 
Resulting instruments address matters including mediation, insolvency, 
secured transactions and electronic commerce.
    As UNCITRAL members, the United States and the People's Republic of 
China participate in the development of UNCITRAL instruments. Included 
in these instruments are four treaties that are awaiting Senate 
approval: the Convention on Independent Guarantees and Standby Letters 
of Credit; the Convention on the Use of Electronic Communications in 
International Contracts; the Convention on the Assignment of 
Receivables in International Trade; and the Convention on Transparency 
in Treaty-Based Investor-State Arbitration. Each of these treaties are 
consistent with U.S. law and practice.
    The United States, as well as the UNCITRAL Secretariat, encourages 
countries to become party to UNCITRAL conventions, enact UNCITRAL model 
laws and adopt principles recommended by UNCITRAL. If confirmed as the 
U.S. Representative to the Vienna Office of the United Nations, I will 
work along with my colleagues in Washington and capitals throughout the 
world to encourage countries, such as the People's Republic of China, 
to adhere to UNCITRAL instruments. As our message will be stronger 
where we are adhering to these instruments, we will be greatly assisted 
in this task should the Senate provide advice and consent to the four 
aforementioned treaties.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Jonathan Cohen by Senator Robert Menendez

Voting Records
    Question 1. For President Trump and Ambassador Haley have suggested 
tying U.S. foreign assistance to countries' voting records in U.N. fora 
such as the Security Council and General Assembly. Do you agree with 
this approach?

    Answer. The Security Council and the General Assembly are arguably 
the most important international bodies in the world, dealing with 
vital issues such as threats to peace and security, disarmament, 
development, humanitarian relief, human rights, the environment, and 
narcotics--all of which directly affect major U.S. interests. The 
American people pay 22 percent of the U.N.regular budget and the 
assessed budgets of major U.N. agencies--more than twice as much as the 
next highest donor country. It is crucial that our investment serve 
American interests.
    Bilateral and regional economic, strategic and political issues are 
important to U.S. interests. So is a country's voting record at the 
United Nations. Therefore, I understand the voting records of states at 
the U.N. are one element, but not the sole factor, considered as 
decisions are made about foreign assistance, and for the reasons stated 
above, I support this approach.
U.N. Security Council
    The Security Council has become increasingly gridlocked--with 
disagreements between the U.S. and western Europeans on one side, and 
Russia and China frequently aligned in opposition. This has crippled 
the Council's ability to address the nightmarish situations in Syria 
and Yemen, and has led to inaction in numerous other hot spots.
    Question 2. In your view, should the U.S. advocate for Security 
Council reform?

    Answer. The United States advocates for U.N. Security Council 
reform within the Intergovernmental Negotiations (IGN) for U.N.Security 
Council Reform process, the framework created at the U.N. for member 
states to negotiate such reforms.
    The United States has participated actively in the IGN since its 
establishment. The IGN works on the basis of consensus and has sought 
to find common ground among member states with different visions of 
U.N. Security Council reform.
    I believe the United States should continue working with like-
minded partners within the IGN to find ways to make the U.N. Security 
Council more efficient and effective.

    Question 3. The Security Council has become increasingly 
gridlocked--with disagreements between the U.S. and western Europeans 
on one side, and Russia and China frequently aligned in opposition. 
This has crippled the Council's ability to address the nightmarish 
situations in Syria and Yemen, and has led to inaction in numerous 
other hot spots. If so, what specific reforms do you think merit 
serious consideration?

    Answer. The United States should continue to support a modest 
expansion of permanent and non-permanent membership of the U.N. 
Security Council. For any expansion to improve the effectiveness of the 
U.N. Security Council, we should consider the ability and willingness 
of any potential Council member to contribute to the maintenance of 
international peace and security.
    The United States should remain opposed to any alteration or 
expansion of the veto.
    The United States has expressed support for several member states 
that have expressed interest in becoming permanent members, should the 
U.N. Security Council expand, including Japan and India.
Participation of American Women
    Question 4. While the U.S. gives significant funding for U.N. 
Peacekeeping, it contributes very few personnel to U.N. Peacekeeping 
operations. Currently, there are 57 U.S. personnel, of which only 7 are 
women, out of a total force of 91,000.
    I know our diplomats work to increase the participation of women in 
the troop force contributions of other countries--which begs the 
question, why are there only 7 American women participating in U.N. 
peacekeeping activities?

    Answer. The United States has been long been one of the strongest 
advocates for the Women, Peace and Security (WPS) agenda. We support 
U.N. Security Council Resolution 2242 (2015), which acknowledges the 
substantial link between women's meaningful involvement in peace 
operations and the achievement of long-term, sustainable peace. 
Resolution 2242 sets targets to double the current rate of women's 
participation as military and police peacekeepers (staff officers and 
military observers), which are currently about 4 and 7 percent 
respectively, by the end of 2018.
    While still low, the number of women in peacekeeping has increased 
due in large part to U.S. efforts. In FY 2017, more than 32,100 
military and police peacekeepers, including 1,475 females, participated 
in U.S.-funded peacekeeping training activities, including through the 
Global Peace Operations Initiative.
    Countries receiving support through the Global Peace Operations 
Initiative increased their deployment of female military peacekeepers 
by 79 percent from 2010 to 2017, while during the same timeframe, non-
GPOI partner countries' deployment of female military peacekeepers 
decreased by 17 percent.
    The Department of Defense manages United States deployments to 
United Nations peacekeeping operations. If confirmed, I pledge to 
maintain a dialogue with DoD to ensure the best, most qualified 
personnel are assigned to peacekeeping operations while striving to 
meet the requirements of the Women, Peace and Security Act of 2017.
Value of the U.N. to the U.S.
    Question 5. As tempting as it may be to turn the U.N.into a 
scapegoat for the world's problems, the U.N.system performs duties that 
are of immense value to the United States. What U.N. functions would 
you describe as being of the greatest value to the United States?

    Answer. The Security Council and the General Assembly are arguably 
the most important international bodies in the world, dealing with such 
vital issues as threats to peace and security, disarmament, 
development, humanitarian relief, human rights, the environment, and 
narcotics--all of which can and do directly affect major U.S. 
interests. The American people pay 22 percent of the U.N. regular 
budget and the assessed budgets of major U.N. agencies--more than twice 
as much as the next highest donor country. Additionally, U.S. voluntary 
contributions amount to $5.3 billion, 58.7 percent of U.S. 
contributions to the U.N. System. It is crucial that our investment 
serve American interests.
    The President has said that he believes the United Nations can be a 
much more accountable and effective advocate for human dignity and 
freedom around the world, and that the United Nations must reform if it 
is to be a more effective partner in confronting threats to peace and 
security. I share this view.
Arrears
    Question 6. The U.S. has sometimes found itself in significant 
arrears to the U.N. Currently, the State Department estimates that the 
United States was likely to accumulate $274.6 million in peacekeeping 
arrears in FY 2017. Do you think failing to pay our bills in full and 
on time undermines our ability to work constructively with other 
members and with the U.N. management to pursue U.S. interests?

    Answer. A critical function of the United Nations is maintaining 
international peace and security and assisting in conflict resolution. 
Supporting these efforts, as President Trump noted in his remarks at 
last year's UNGA, is worth every dollar if the U.N. achieves its goals.
    The United States is accumulating peacekeeping arrears as the 
result of not exceeding 25 percent of total peacekeeping assessments. 
This rate reflects both U.S. and the principle that no one country 
should pay more than one quarter of U.S. peacekeeping assessments. The 
25 percent rate for peacekeeping assessments mandated under U.S. law is 
not new, having been first enacted into law in 1994.
    As long as the actual U.S. peacekeeping assessment rate exceeds 25 
percent, as it currently does, there will be arrears. There is an 
effort underway to obtain General Assembly agreement to reduce the 
actual U.S. peacekeeping assessment rate to 25 percent. I believe that 
is the best way to avoid the potential problems that arrears can cause. 
If confirmed, I will work energetically to persuade other member states 
to reduce the U.S. assessment rate and to ensure that the arrears do 
not negatively affect the ability of the U.S. to advance our interests 
at the United Nations.
Cyprus/UNFICYP
    Question 7. What role do you think the Security Council should play 
in addressing Turkey's belligerent actions in the Eastern Mediterranean 
and Aegean Sea, including Turkish naval efforts to obstruct 
hydrocarbons exploration in Cyprus' Exclusive Economic Zone?

    Answer. If confirmed, I will continue to support longstanding U.S. 
policy recognizing the Republic of Cyprus's right to develop its 
resources in its EEZ. The island's oil and gas resources, like all of 
its resources, should be equitably shared between both communities on 
the island in the context of an overall settlement. I will discourage 
any actions or rhetoric that increase tensions. It is important that 
the countries in the region continue to create the conditions that will 
facilitate peaceful economic development and enable companies to 
operate in a stable and predictable environment. If confirmed, I will 
urge the Security Council to send the same message.
    On UNFICYP, I will urge the Security Council to continue to review 
all peacekeeping missions through the prism of the U.S. peacekeeping 
principles.

    Question 8. What are the administration's priorities with respect 
to the Eastern Mediterranean and its bilateral relationship with 
Cyprus, and are you willing, if confirmed, to take further steps to 
enhance this relationship via your role at USUN?

    Answer. Stability in the Eastern Mediterranean is a top priority 
for the administration. If confirmed, I would be willing to take steps 
to enhance the relationship between the United States and the Republic 
of Cyprus. I will continue to support the high-level U.S. engagement 
with the Republic of Cyprus on the settlement process and on the wide 
range of other issues of common concern to both countries.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Jonathan Cohen by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Through 32 years in the Foreign Service, I have promoted 
human rights and democracy in virtually every assignment, including by 
contributing to country human rights, trafficking in persons and 
religious freedom reports, and: as a refugee protection officer in 
Thailand; as the Desk Officer responsible for the OSCE's Human 
Dimension at the State Department; developing Holocaust education 
programming for the International Task Force for Holocaust Education, 
Remembrance and to counter the growth of neo-Nazism Research in Sweden 
and beyond; helping to establish the first post-Saddam Government in 
Iraq as part of the Coalition Provisional Authority; supporting the 
committee on Missing Persons and preserving cultural heritage in 
Cyprus; and hosting programs to support women's rights, speaking out in 
support of minorities and religious freedoms, and developing a 
stabilization program to get Internally Displaced People home to areas 
liberated from ISIS as DCM in Baghdad. In my current position I led 
U.S. delegations seeking the liberation from wrongful imprisonment of 
U.S. citizens and U.S. Government employees in Turkey, pressed the 
Turks to end their extended State of Emergency, argued for the 
restoration of press freedoms in Turkey and testified before the 
Helsinki Commission on the weakening of democracy in Turkey under the 
State of Emergency.
    I believe my contributions in this field have underscored the 
commitment of the U.S. Government and the American people to advancing 
human rights and democracy, improved conditions for thousands of 
Vietnamese, Cambodia and Lao refugees in Thai camps, put neo-Nazism in 
context for school children throughout Europe, placed Iraq on a path 
toward democratic governance, and helped over a million Iraqi IDPs get 
home quickly and safely after ISIS had deprived them of their most 
basic human rights and caused them to flee their homes. If confirmed, I 
will continue to champion human rights and democracy in the context of 
the United Nations.

    Question 2. What are the most pressing human rights issues at the 
United Nations? What are the most important steps you expect to take--
if confirmed--to promote human rights and democracy at the UN? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights concerns in the United 
Nations today include addressing the situations in Iran, Syria, the 
Democratic People's Republic of Korea (DPRK), Burma, South Sudan, and 
the situation in Russian-occupied areas like Crimea. Of course, the 
protection of human rights is deeply intertwined with international 
peace and security, and situations in many countries, including for 
example Syria, are addressed across a wide variety of U.N. entities in 
Vienna, New York, and Geneva.
    The U.N. must also remain a tool for the promotion of democracy and 
human rights norms. I believe the U.S. resolution, advanced at the 2017 
United Nations General Assembly, on strengthening the role of the 
United Nations in enhancing periodic and genuine elections and the 
promotion of democratization must remain a key priority. Other 
important resolutions facing the United Nations include those on the 
protection of journalists, protection of human rights defenders, and 
the resolutions on freedom of expression, freedom of peaceful assembly 
and association, and freedom of religion and belief. If confirmed, I 
will work closely with my colleagues at our various U.N. missions to 
vigorously advocate for resolutions that advance these priorities.
    If confirmed, I will lobby like-minded states to improve the vote 
count on country-specific human rights resolutions and to pursue 
priorities that align with our own; a large number of votes in favor 
sends a strong message about the global community's commitment to these 
issues. It is essential that the international community address human 
rights violations and abuses in these countries.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the U.N. in 
advancing human rights, civil society and democracy in general?

    Answer. There are several potential obstacles to addressing human 
rights concerns in the aforementioned crises. Russia is unlikely to be 
cooperative with U.N. Security Council resolutions regarding Crimea and 
Syria, and we must continue to urge China to play a constructive role 
with regard to the human rights and humanitarian problems in the DPRK. 
A critical step in addressing these human rights issues will be 
encouraging other nations to play constructive roles. At the same time, 
we have been able to maintain cross-regional support for a number of 
resolutions on the human rights situations in those countries despite 
Russian and Chinese opposition.
    I am also concerned about the efforts undertaken by a number of 
governments to suppress the legitimate activities of civil society and 
faith based organizations, including by human rights defenders, NGOs 
and journalists within the U.N. If confirmed, I will work to address 
reprisals against civil society representatives and faith based 
organizations for their engagement with U.N. or other international 
human rights mechanisms. I will also work with my colleagues to address 
the lack of NGO accreditation by the U.N. ECOSOC NGO committee which is 
mandated with accrediting civil society and faith based organizations 
to the United Nations system.

    Question 4. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. This past year I was selected and served actively as a 
mentor in a pilot program connecting underrepresented groups in the 
Foreign Service with senior officers to help them chart a course to the 
senior ranks. I have played similar mentoring roles for subordinates of 
diverse backgrounds throughout my career and will continue to do so in 
the future. I am a strong supporter of EEO and will ensure that EEO 
principles are applied enthusiastically without exception in any 
workplace I supervise.
    In 2011 I was nominated for the Arnold Raphel Award given to the 
State Department's most outstanding mentor. The nomination cited me for 
``sustained and exemplary leadership and mentoring of Foreign Service 
employees in all phases of career development.'' I was also commended 
for mentoring by the Office of Inspector General, whose lead for the 
2010 Embassy Nicosia inspection wrote, `` I have not seen a more 
conscientious or effective mentor of First and Second Tour employees in 
the many embassies I have inspected over the last five years.''

    Question 5. What steps will you take to ensure each of the 
supervisors at the U.S. Mission to the U.N. are fostering an 
environment that is diverse and inclusive?

    Answer. The commitment to diversity, inclusiveness and EEO will be 
embedded in the work requirements of each supervisor under my charge, 
will be raised by me often, from introductory meetings to counseling 
sessions to routine work reviews, and will be underscored by my my own 
comportment and my insistence that all employees under my supervision 
take required courses relevant to these principles.

    Question 6. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

                               __________


     Responses to Additional Questions for the Record Submitted to
                Joseph Cella by Senator Robert Menendez

    Question 1. How do you intend to advance climate diplomacy with the 
Fijian Government?

    Answer. The United States demonstrates leadership on climate 
issues, particularly through the application of innovation and market-
friendly solutions to build more resilient and sustainable communities. 
This is critical in the context of Pacific Island countries, which rely 
heavily on natural resources such as coastal fisheries and limited 
aquafers which are under increasing pressure due to climate change. I 
would work with the Governments of all the countries to which I would 
be accredited, including Fiji, to advance our efforts across a broad 
range of environmental initiatives including universal access to 
affordable and reliable energy, and open, competitive markets that 
promote energy efficiency; supporting healthy reef systems and sound 
management of coastal fisheries; improved access to clean potable 
water; and the encouragement of sustainable agriculture which will 
enhance food security.

    Question 2. Do you believe or accept the dire situation Fiji and 
other Pacific Island nations are facing from the effects of climate 
change?

    Answer. Yes. I recognize that climate change and disaster risk 
resilience are priority issues for the Pacific Islands and intend to 
work with our partners to raise the capacity of Pacific Island 
communities, civil society, governments, and regional institutions to 
withstand frequent and crippling natural disasters and to enhance their 
resilience. If confirmed, I would seek to promote food and water 
security, health resilience, disaster risk reduction, and sustainable 
land practices.

    Question 3. Do you believe it is in the interest of the U.S. 
Government to help our partners and allies in the Pacific region, like 
Fiji, become more resilient to the effects of climate change?

    Answer. Yes. The National Security Strategy makes clear a free and 
prosperous world is in the interest of the United States, and I agree. 
I recognize that climate change and disaster risk resilience are 
priority issues for the Pacific Islands and intend to work with our 
partners to raise the capacity of Pacific Island communities, civil 
society, governments, and regional institutions to respond to the 
effects of climate change. If confirmed, I would seek to promote food 
and water security, health resilience, disaster risk reduction, and 
sustainable land practices.''

    Question 4. How will you explain the U.S. decision to leave the 
Paris Agreement to the current Presidency of the Convention overseeing 
the Agreement that we are turning away from?

    Answer. I commend the Government of Fiji for its leadership as the 
President of the United Nations Climate Change Conference. Irrespective 
of our views on the Paris Agreement, the United States will continue to 
be a leader in clean energy and innovation. The United States has a 
strong record of reducing our own greenhouse gas emissions while 
growing our economy, through investments in technology, innovation, and 
entrepreneurship, and we will continue to lead in these areas.

    Question 5. What is your view of China's policy and actions?

    Answer. China is playing a greater role in the international system 
and it clearly seeks to expand its influence. China, like the United 
States, has a positive role to play in the region in creating jobs, 
expanding educational opportunities, and promoting economic 
development. There is a need to improve economic connectivity through 
sustainable development and open access to high-quality infrastructure. 
But development financing should not result in unsustainable debt or 
compromise a country's sovereignty. If confirmed, I would encourage the 
Governments to which I would be accredited to closely scrutinize all 
offers of assistance and ensure development projects adhere to high 
international standards in both quality and transparency.

    Question 6. What do you think the U.S. and our partners ought to be 
doing in response?

    Answer. Partnerships should be based on free and open principles 
and a shared interest in a peaceful, prosperous and resilient Pacific 
region. By ``free'' I mean free from coercion, that Pacific Island 
countries can pursue in a sovereign manner the paths they choose, and 
that they become more free in terms of good governance, fundamental 
rights, transparency, and anti-corruption. By ``open'' I mean open sea 
lines of communication and open airways, but also more open 
infrastructure in a way that drives integration and raises the standard 
of living throughout the region. I also mean open for free, fair and 
reciprocal trade. If confirmed, I would seek a results-oriented 
constructive relationship with China and work closely with our partners 
to build greater stability, security and economic opportunity 
throughout the region in line with international best practices.



                               __________


     Responses to Additional Questions for the Record Submitted to
               Joseph Cella by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. With respect to human rights internationally, during my 
time working in the United States House of Representatives, I worked 
closely with the Chaldean Community in Michigan whose community 
suffered mightily at the hands of violent militias and terrorists. In 
so doing, I helped to ensure sufficient funding was provided to those 
in Iraq whose human rights as a minority population were being 
oppressed. This provided key financial support to provide relief for 
that community in their time of great need. I also worked closely with 
the organization In Defense of Christians, helping launch their 
initiative to protect the suffering Christians and other religious and 
ethnic minorities in Iraq, who were particularly brutalized with the 
rise of ISIS.
    With respect to promoting democracy in the United States,since I 
first visited Washington, D.C. in 1987 on the Close Up High School 
Program, and soon thereafter becoming a precinct delegate, I was 
inspired to serve as a mentor to engage fellow citizens of all ages, on 
both sides of the aisle, or those who had yet to identify with a 
particular party, to engage in our democratic process, and the vital 
connection of service and citizenship in our great republic. And to 
this day, I carry on with this calling, mentoring those to engage 
heartily in our democracy in the arena of ideas involving public 
policy, public service and politics. This not only enriches citizen 
engagement but has also inspired various career callings to public 
service.

    Question 2. What are the most pressing human rights issues in Fiji, 
Kiribati, Nauru, Tonga, and Tuvalu? What are the most important steps 
you expect to take--if confirmed--to promote human rights and democracy 
in Fiji, Kiribati, Nauru, Tonga, and Tuvalu? What do you hope to 
accomplish through these actions?

    Answer. Fiji's parliamentary democracy has been marred by four coup 
d'etats from 1987 to 2006. Over the past several years, Fiji has taken 
significant and positive steps, and the United States welcomed and 
supported Fiji's reestablishment of democracy with national elections 
in 2014, which the United States supported and which international 
observers found to be free and fair. The 2018 national elections offer 
a further opportunity to cement Fiji's position as a functional 
democracy. If confirmed, I plan to support elections, including a 
multilateral observer group, and will continue to encourage Fiji to 
allow its citizens, media, political parties, and organizations to 
fully participate in the political process.
    In response to unfavorable press coverage of the Australian-run 
refugee detention center, Nauru instituted and still requires foreign 
journalists to pay a $6,000 non-refundable visa application fee. Of the 
few journalists to pay the fee and apply, the Government has denied 
several of these applications.
    Tonga is undergoing a democratic transition in which powers have 
shifted from the nobility to a democratically elected cabinet. Since 
the 2006 riots, the monarchy has made significant concessions to 
democratically elected officials, though pro-democracy proponents 
continue to push for more. The November 2017 elections were another 
positive step; election monitors, including those from the U.S. 
Government, found the election to be free, fair, and credible.
    Kiribati and Tuvalu are democracies; if confirmed, I will continue 
to support the development of responsive governance and a vibrant civil 
society.
    All five countries see high rates of gender-based violence and 
discrimination against marginalized populations. If confirmed, I pledge 
to work with the Governments of Fiji, Kiribati, Nauru, Tonga, and 
Tuvalu to reduce violence and discrimination, and move towards a more 
equal society in each respective country. Additionally, women and some 
minority groups are prevented from owning land in these countries, 
which severely restricts both their economic independence and 
opportunities for success. If confirmed, I will encourage states to 
reform land ownership laws, make choices that improve governance and 
rule of law, and work with civil society activists and government 
officials to promote capacity building and good governance. I will 
continue to work with Pacific regional organizations and like-minded 
partners to make development more inclusive and protect human rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Fiji, Kiribati, 
Nauru, Tonga, and Tuvalu in advancing human rights, civil society and 
democracy in general?

    Answer. If confirmed, I will continue working with the accredited 
governments to bolster their respective democratic institutions; 
eliminate discriminatory and restrictive laws; and fully respect human 
rights and fundamental freedoms, including for a free and open media 
environment. Limited government capacity and resources remain obstacles 
to reform.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Fiji, Kiribati, Nauru, Tonga, and Tuvalu? If 
confirmed, what steps will you take to pro-actively support the Leahy 
Law and similar efforts, and ensure that provisions of U.S. security 
assistance and security cooperation activities reinforce human rights?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and non-governmental organization in Fiji, Kiribati, Nauru, 
Tonga, and Tuvalu. If confirmed, I will ensure the mission continues to 
scrupulously adhere to the Leahy Law in vetting candidates for U.S.-
sponsored training, exchanges, and other relevant activities.

    Question 5. Will you and your embassy team actively engage with 
Fiji, Kiribati, Nauru, Tonga, and Tuvalu to address cases of key 
political prisoners or persons otherwise unjustly targeted by those 
nations?

    Answer. I am not aware of any reports of current political 
prisoners or prisoners of conscience in any of the five countries of 
accreditation. However, I am monitoring the ongoing Fiji Times sedition 
trial closely. I strongly believe that freedom of expression, including 
for speech and the media, strengthens democracy and needs to be 
protected. If confirmed and any additional cases arise, or if there are 
persons unjustly targeted, I will work with authorities in Fiji, 
Kiribati, Nauru, Tonga, and Tuvalu to raise our concerns.

    Question 6. Will you engage with Fiji, Kiribati, Nauru, Tonga, and 
Tuvalu on matters of human rights, civil rights and governance as part 
of your bilateral mission?

    Answer. Yes. If confirmed, I will work with authorities in Fiji, 
Kiribati, Nauru, Tonga, and Tuvalu on matters of human rights, civil 
rights, and governance. I will also seek to exchange best practices 
between our governments.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Should I be confirmed, in my first 100 days it is my goal 
to meet with each and every individual at Post, being attentive to 
their needs and receiving their input. With my personal and 
professional experience, I will mentor and support them, and their 
families, as I am able; and working with their supervisors, I will 
engage them to do the same.
    Leadership in public service is an honor and a responsibility. 
Leaders set the tone to help others advance. I will hold myself to the 
highest standards and expect the highest standards of performance from 
supervisors and other colleagues. I will provide the necessary 
resources, ensuring the safety and security of all of my colleagues, 
recognize them for their achievements, and ensuring they receive 
mentoring and support as the need may arise. And I will work to ensure 
that all have equal access to promotional opportunities.
    And what will undergird and guide this is my adherence to the 
principle that there is inherent dignity and worth in every human 
being, the dignity of work, and that all human beings are created equal 
under the law, and they ought to be treated with dignity, worth, and 
respect.

    Question 8. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. In my first 100 days, I will be meeting with the 
supervisors at post individually, ascertaining what they may be 
presently doing to foster such an environment that also recognizes 
there is inherent dignity and worth in every human being, the dignity 
of work, and that all human beings are created equal under the law, and 
accordingly, being treated with dignity, worth and respect. And based 
on what I learn, act accordingly.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Fiji, Kiribati, Nauru, Tonga, and Tuvalu?

    Answer. No.

                               __________


     Responses to Additional Questions for the Record Submitted to
               David Cornstein by Senator Robert Menendez

    Question 1. Prime Minister Orban cemented his constitutional 
majority in last month's election and his rhetoric of ``revenge'' after 
the poll and the demonizing of human rights activists in pro-government 
media is simply unacceptable. This behavior fuels an ultra-nationalist, 
xenophobic climate that ultimately serves Vladimir Putin's agenda to 
undermine democracy in Europe.

   Do you consider Orban's Government aligned with NATO values and 
        goals, particularly on democratic governance and the rule of 
        law? Do you commit to personally confront the Hungarian 
        Government's anti-democratic and xenophobic behavior? How?
   What strategy will you have to respond to anti-democratic trends in 
        Hungary? Do you believe that the administration's current 
        strategy is sufficient to address rollbacks in rule of law and 
        the rise in anti-Semitism and xenophobia under Orban's 
        leadership? How will you seek to influence policy discussions 
        in Washington on Hungary?
   How will you engage with embassies of our partners and allies in 
        Budapest, to promote a clear, unified stand in support of 
        transatlantic democratic values?

    Answer. Hungary is a treaty ally of the United States. We share 
common values, which we have pledged to uphold as part of our OSCE and 
NATO commitments. The United States, through its Embassy in Hungary, 
seeks to build relationships both with the Government and the full 
range of Hungarian society, including the Jewish community and civil 
society. If confirmed, I will sustain this engagement, speak out 
against anti-Semitism, and urge like-minded partners to join me in 
denouncing hate speech, attacks, and discrimination and xenophobia in 
all forms.
    As in other international relationships, the U.S. Government 
balances strategic engagement and principled defense of values in its 
relationship with Hungary. Criticism alone is not the basis for a 
successful approach, either to interests or values. We are working to 
strengthen the bilateral relationship with Hungary by engaging on 
shared interests across the range of foreign policy priorities while 
continuing to speak up when needed on areas of concern. If confirmed, I 
will raise concerns with the Government whenever they might arise and 
will consider, based on the issue at hand, the best strategy for 
engagement, whether unilaterally or in conjunction with other Allies 
and partners.

    Question 2. The Hungarian Government has sought since 2011 to issue 
passports and voting rights to Hungarians living outside the country's 
borders. But a fraud scheme reportedly allowed dozens of foreign 
nationals to enter the United States through the Visa Waiver Program 
with Hungarian passports obtained under false identities. Press reports 
have indicated that 65 such individuals successfully entered the United 
States, and 30 remained in the country as of October.

   What is the administration's understanding of the real identities 
        of these 30 individuals, and the extent to which these 
        individuals present national security risks to the United 
        States?
   Do you commit to briefing the Senate Foreign Relations committee, 
        along with appropriate counterparts from DHS and State, on this 
        issue as soon as possible?
   What will you do, if confirmed, to address risks emerging from 
        Hungary's participation in the Visa Waiver Program?

    Answer. The integrity of foreign passports is a condition of 
inclusion in the Visa Waiver Program, as a matter of national security, 
and I understand the U.S. Government has been discussing concerns with 
Hungary to bolster screening of individuals and the integrity of its 
procedures. If confirmed, I stand ready to continue to engage the 
Hungarian Government to ensure our concerns about homeland security are 
satisfactorily addressed.
    If confirmed, I will prioritize working with the Department of 
State, the Department of Homeland Security, members of Congress, and 
the Hungarian Government to address this serious issue and to ensure 
that information is appropriately provided to Congress.

    Question 3. Prime Minister Orban has maintained a close 
relationship with Russian President Vladimir Putin and other leaders 
who seek to undermine NATO.
   How do you believe that Orban's closeness to Putin undermines 
        NATO's ability to counter Russia's growing cyberattacks, 
        disinformation, and other forms of hybrid warfare against the 
        U.S. and other NATO member states?
   How would you raise concerns about Hungarian Government actions 
        that run counter to our security cooperation?

    Answer. Hungary is a NATO ally and we expect it, and all allies, to 
maintain the security and integrity of the Alliance. It is my 
understanding that this administration, including the State Department, 
continues to examine ways to work with Central European governmental 
and non-governmental partners to counter disinformation, enhance energy 
security, and strengthen governance, including initiatives bolstering 
regional partnerships to counter Russian malign influence efforts. If 
confirmed, I will support--and bolster, where appropriate--these 
efforts.
    Allies should be able mutually to address the full range of their 
concerns, particularly in the security field. If confirmed as 
Ambassador, I will not hesitate to express any concerns the United 
States has with regard to our security cooperation directly to the 
Hungarian Government as appropriate.

    Question 4. Since the April election, Prime Minister Orban's 
Government has pledged to adopt a so-called ``Stop Soros'' package of 
legislation that will further restrict operating space for civil 
society in Hungary. Orban reportedly also endorsed an ``enemies list'' 
that was circulated in pro-government media (and which included some 
names of American citizens) and has vowed revenge against those who 
opposed him.

   Do you support an increase in U.S. diplomatic support and foreign 
        assistance to Hungarian civil society activists and 
        journalists? In particular, do you commit to supporting 
        independent media, and to visible engagement with vulnerable 
        activists in the country?
   What is your opinion of the ``Stop Soros'' legislation and 
        campaign? How will you engage the Orban Government to cease 
        cracking down on operating space for civil society and 
        humanitarian groups?
   What specific steps will you take to protect the interests of those 
        Americans who appear on this reported ``enemies list?''

    Answer. Although Central European and Baltic partners, including 
Hungary, have ``graduated'' from U.S. development assistance, the U.S. 
Government remains committed to helping these partners as appropriate 
through regional programming. Free expression is vital for the 
functioning of a pluralistic democracy; civil society actors and 
members of advocacy groups also have an important role to play in the 
democratic process. The U.S. Embassy has regular discussions with 
Hungarian officials about these issues. If confirmed, I will maintain--
and increase, where appropriate--the Embassy's efforts.
    The Department of State has no greater responsibility than the 
safety and security of U.S. citizens overseas. My overarching duty if 
confirmed will be the safety and well-being of Americans--both private 
and official--within my area of responsibility.

    Question 5. Recent reports have noted that the Hungarian Government 
has allowed corruption to proliferate, including a reported scheme in 
which offshore intermediaries essentially sold Hungarian residency 
permits that allowed purchasers to obtain EU residency, and another 
story about the former mayor of Orban's hometown who increased his 
family's wealth from $400,000 in 2010 to $1 billion this year.

   What is the administration's position on the threat posed by 
        corruption in Hungary? Are you prepared to support visa bans 
        and asset freezes on corruption individuals in Hungary?

    Answer. According to Transparency International's Corruption 
Perceptions Index, Hungary ranked 27th out of 28 EU member states in 
2017 for perceived corruption. U.S. businesses have expressed concern 
that corruption in the public sector negatively affected Hungary's 
regional economic competitiveness.
    If confirmed, I will continue work with Embassy Budapest to engage 
with the business community, supporting its efforts to increase 
transparency and reduce the risks of corruption. I would also engage 
civil society on issues of transparency and corruption by assisting 
those working on this issue.

    Question 6. Academic freedoms are being undermined in Hungary, with 
the U.S.-accredited Central European University (CEU) at risk of having 
to leave the country next year due to legislation targeting certain 
foreign institutions. An agreement with the state of New York that 
would allow CEU's continued functioning is awaiting the signature of 
the Hungarian Government since last fall.

   As Ambassador, will you work towards concluding a fair agreement 
        between the two parties to permit CEU to remain in Budapest?

    Answer. The United States has followed the Central European 
University issue closely, and continues to call for an expedient and 
transparent resolution that does not disadvantage U.S. institutions. If 
confirmed, I will continue these efforts.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             David Cornstein by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. While I have participated in a number of charitable and 
philanthropic endeavors over the course of my career, one item in 
particular that I am proud of includes my service as a member of the 
Board of the Jewish Community Relations Council. A key part of our 
efforts was working to assist in feeding and sheltering poorer 
residents of New York City. Another major effort we undertook was to 
help the Jewish people of France. As part of this work we advised the 
Jewish community in France regarding how to combat anti Semitic 
feelings and how to work with the French Government to further their 
ability to remain safe and secure as they live, work, and practice 
their faith in France.

    Question 2. What are the most pressing human rights issues in 
Hungary? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Hungary? What do 
you hope to accomplish through these actions?

    Answer. The State Department's 2017 Human Rights Report noted 
concerns about respect for certain human rights including evidence of 
growing anti-Semitism, allegations of mistreatment of migrants and 
challenges to freedom of speech.
    The United States, through its Embassy in Hungary, seeks to build 
relationships both with the Government and across the full range of 
Hungarian society. Engagement with Hungarian officials, religious 
groups, civil society, media, and academic communities are important 
tools to promote democratic values. If confirmed, I will encourage my 
Hungarian counterparts to uphold our shared values and I will do 
everything in my power to combat intolerance and to promote religious 
freedom for all people. Additionally, as a proud American Jew, I take 
seriously concerns related to anti-Semitism, and, if confirmed, would 
make it a key priority to focus on ensuring that people of all faiths, 
including those of the Jewish faith, feel secure and comfortable 
living, working, and practicing their faiths in Hungary.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Hungary in 
advancing human rights, civil society, and democracy in general?

    Answer. Hungary and the United States share common values, 
including the importance of protecting and promoting human rights. 
Hungary's civil society is diverse and active, with independent groups 
that report and advocate on the issues they care about around the 
country. However, some organizations report that they face pressure 
from a variety of sources. If confirmed, I will continue the U.S. 
Embassy's regular engagement with civil society groups in Hungary.

    Question 4. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Hungary? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Civil society is an important part of the democratic 
process and has a role to play in public awareness and public 
discourse. If confirmed, I am committed to sustaining engagement with a 
broad spectrum of civil society groups in Hungary. If confirmed, I will 
ensure the Department continues to vet thoroughly all individuals and 
units nominated to participate in U.S.-funded security assistance 
activities, in accordance with the Leahy Law. If there are findings of 
credible information regarding gross violations of human rights, I will 
take the necessary steps in accordance with the law and Department 
policy, including working to ensure the responsible parties do not 
participate in U.S.-funded training.

    Question 5. Will you and your embassy team actively engage with 
Hungary to address cases of key political prisoners or persons 
otherwise unjustly targeted by Hungary?

    Answer. The State Department's 2017 Human Rights Report states that 
there were no reports of political prisoners in Hungary. In the 
unlikely event that the situation changes, I will, if confirmed, 
actively engage with Hungary.

    Question 6. Will you engage with Hungary on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I will sustain the United States engagement 
with a broad spectrum of civil society in Hungary, including human 
rights activists and religious groups, and the organizations that 
represent them.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my career in both the public and private sectors 
I have worked with a diverse team from all walks of life. If confirmed, 
I will continue to set a tone of inclusivity, mutual respect and team 
work from day one.

    Question 8. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed I will work closely with our team to create an 
environment that is respectful and inclusive for all. I will bring a 
hands on management style to the post and I will hold our team 
accountable through clear and open communication about our shared 
values and expectations.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in the Hungary?

    Answer. No.

    Question 12. Hungary's posture regarding Russia is unusual in the 
region to say the least. As the Senate Foreign Relations committee 
Report we issued in January suggested, Russian disinformation isn't 
just creeping in over the transom, the Hungarian Government has opened 
the door and put out a welcome mat. What is your plan for addressing 
malign Russian influence in Hungary?

    Answer. Although Central European and Baltic partners, including 
Hungary, have ``graduated'' from U.S. development assistance, the U.S. 
Government remains committed to helping these partners in areas such as 
building resilience to Russian pressure. I understand the 
administration is looking for additional ways to work with Central 
European Governmental and non-governmental partners to counter 
disinformation, enhance energy security, and strengthen governance, 
including initiatives bolstering regional partnerships to counter 
Russian malign influence efforts.

    Question 13. The Government of Hungary has advanced the protection 
of Christians as an element of its foreign policy, holding, for 
example, an exceptional ministerial-level side event on this subject 
with Russian Foreign Minister Lavrov at the most recent OSCE 
Ministerial. In Hungary itself, however, problems stemming from the 
2011 law on religion (which stripped more than 300 registered religions 
of their status overnight) continue. Hungary has refused to implement 
decisions of the European Court on Human Rights, which concluded that 
Hungary is engaged in impermissible discrimination against some faiths. 
Within Hungary, there are emerging voices criticizing the Government's 
selective approach to funding, which is a combination of advancing 
traditional churches and political influence buys. Will you meet with 
Pastor Gabor Ivanyi, whose Methodist church, the Hungarian Evangelical 
Fellowship, was banned during the communist time, recognized after 
1990, and then stripped of its status under the 2011 law?

    Answer. With our own experience rooted in the long struggles for 
equality in America, the United States can and does play a positive 
role in helping foster tolerance in Hungary. If confirmed, I commit to 
working with government officials, civil society, and religious 
community stakeholders to ensure that all voices are heard, and to urge 
Hungary to protect religious minorities and promote religious freedom 
for all. Regarding Pastor Gabor Ivanyi specifically, while I am not 
deeply familiar with his case, if confirmed I am committed to learning 
more about the matter and seeing if there is anything I can do to 
assist.

    Question 14. I understand that numerous Americans, possibly dozens, 
were among those included in an ``enemies list'' that Prime Minister 
Orban subsequently endorsed. This comes after the Prime Minister made a 
campaign pledge to deliver ``moral, legal and political revenge'' to 
his enemies after the election. Do you think this is something that 
should concern the United States? What is your reaction to the 
inclusion of Americans on this list?

    Answer. Civil society actors and members of advocacy groups have an 
important role to play in the democratic process, including promoting 
public awareness and public discourse. Efforts to stigmatize or 
intimidate these individuals for exercising their rights to freedom of 
expression and association are not consistent with OSCE and NATO 
commitments.
    The Department of State has no greater responsibility than the 
safety and security of U.S. citizens overseas. My overarching duty if 
confirmed will be the safety and well-being of Americans--both private 
and official--within my area of responsibility.

    Question 15. If confirmed, there will be other State Department 
actors available to help advance the U.S.-Hungary bilateral 
relationship, including USOSCE in Vienna, Special Envoys on Holocaust 
Issues and--when filled--on Combatting Anti-Semitism, and the Bureau of 
Democracy, Human Rights and Labor. How will you take advantage of those 
resources and integrate them as assets into your work? If confirmed, 
how will you use the Department's reporting tools, including the Annual 
Country Reports on Human Rights?

    Answer. If confirmed, I will amplify the work of the USOSCE in 
Vienna, the Special Envoys on Holocaust Issues and Monitoring and 
Combatting Anti-Semitism, and the Bureau of Democracy, Human Rights and 
Labor to broaden and deepen our cooperation with Hungary. I recognize 
the importance of the OSCE as a multilateral platform to defend and 
advance democratic values in OSCE participating States, and I would, if 
confirmed, work with the Chairman and the Members and Staff of the U.S. 
Helsinki Commission to this end.
    If confirmed, I would also utilize the Department's reporting 
tools--including the Annual Country Reports on Human Rights and on 
Religious Freedom, as foundations for conversations with Hungarian 
Government officials and members of civil society on protecting and 
promoting human rights and religious freedom.

    Question 16. In 2001, the Hungarian Government--which was also led 
by the Fidesz party at that time--gave assurances that ``the Hungarian 
Government . . .  set aside all aspirations for any kind of dual 
citizenship for persons belonging to Hungarian national minorities and 
living in the neighboring countries . . . '' Nevertheless shortly after 
the 2010 elections, Hungary significantly extended opportunities to 
obtain citizenship and then voting rights, theoretically on the basis 
of blood identity, and officials said before the elections that one 
million people have applied for Hungarian passports under this system. 
Under Hungary's simplified naturalization process, more than 60 people 
who fraudulently obtained genuine Hungarian passports have entered the 
United States under the Visa Waiver Program. As a result, the 
Department of Homeland Security has placed Hungary on a provisional 
status. Putting aside other Visa Waiver issues, such as reports of 
increasing Hungarian overstays, will you work with the Department of 
Homeland Security and members of Congress to address the very serious 
security implications of the simplified naturalization process?

    Answer. The United States must rely on the integrity of foreign 
passports as a condition of inclusion in the Visa Waiver Program, as a 
matter of national security, and I understand the U.S. Government has 
been discussing concerns with Hungary to bolster screening of 
individuals and the integrity of its procedures.
    If confirmed, I will prioritize working with the Department of 
Homeland Security, members of Congress, and the Hungarian Government to 
address this serious issue.

    Question 17. Some Hungarian officials have suggested that the U.S.-
Hungary security relationship is fine, there are just some bumps in the 
political relationship. How do you view the security and political 
relationships with the U.S. and the relationship between the two? To 
what do you ascribe differences or tensions that may exist between the 
United States and Hungary? What do you see as the challenges in 
improving the relationship?

    Answer. Hungary is a NATO and EU member and a longstanding friend 
and ally of the United States. It makes significant contributions to 
common security objectives such as combating terrorism, transnational 
crime, and weapons proliferation. As a NATO Ally, Hungary participates 
in regional and global missions, including in Iraq and Afghanistan. 
NATO is an alliance of shared values as well as common interests, and 
the United States is committed to working with its Allies to ensure the 
Alliance is built on strong democratic principles.
    I understand the U.S. Government is working to strengthen the 
bilateral relationship with Hungary by cooperating on shared interests 
across the range of foreign policy priorities while continuing to speak 
up on areas of concern whenever they arise. If confirmed I will be 
committed to that approach.

    Question 18. Under Viktor Orban, Hungary has cultivated its 
relationship with China. This includes gestures like banning pro-Tibet 
demonstrations in 2011 during Chinese Premier's visit to Budapest and 
laying a wreath at the Communist Heroes monument at Tiananmen Square in 
2016, to more substantive engagement like the of hosting China's 
``16+1'' summit with Central European and Balkan leaders last November. 
In April, Hungary was the only EU country that declined to co-sign a 
report criticizing the ``One Belt, One Road'' initiative as ``pushing 
the balance of power in favor or subsidized Chinese companies.'' How do 
you see the role of China in Hungary and the region? What interests of 
the United States are engaged with respect to Hungary's relationship 
with China?

    Answer. China's economic footprint in Europe is growing, and I 
understand the State Department is actively examining the troubling 
rise of Chinese influence in Central Europe. If confirmed, I will work 
with State Department and other U.S. Government stakeholders in 
devising and implementing a regional approach to these concerns. I will 
urge the Hungarian Government to work more closely with other members 
of the Three Seas Initiative to promote Western investment in Central 
Europe and foster greater European integration, as well as with the 
European Union to develop more effective tools to screen foreign 
investment.



                               __________


     Responses to Additional Questions for the Record Submitted to
                Eliot Pedrosa by Senator Robert Menendez

Latin America Economic Overview
    Latin America's economic recovery is gaining momentum, as 
recessions in a few countries are coming to an end (Brazil, Argentina, 
and Ecuador). The IMF estimates regional growth at 1.3 percent in 2017, 
and projects activity to accelerate further to 1.9 percent in 2018 and 
2.6 percent in 2019. The recovery is broad based across the region. 
While Mexico, Central America, and parts of the Caribbean are 
benefitting from stronger growth in the United States, growth in South 
America is mainly driven by the end of recessions in Brazil, Argentina, 
and Ecuador, as well as higher commodity prices.

    Question 1.  How is the region doing economically? The fundamentals 
appear promising: where are your concerns?

    Answer. The region is consolidating its recovery this year, with a 
private sector consensus forecast of two percent growth in 2018, 
despite the ongoing collapse in Venezuela. Stronger growth in the 
United States and other advanced economies, along with more supportive 
commodity prices, will provide a tailwind for the major economies and 
commodity producers in the region.
    Lower inflation in most countries across the region and falling 
real interest rates should remain supportive for domestic demand and 
household consumption. Business confidence has recovered from prior 
year lows, and investment is beginning to recover. While economic 
growth is strengthening, some countries' fiscal and external positions 
remain vulnerable to shocks. As such, it is critical that the regional 
governments pursue policies and structural reforms that reduce economic 
vulnerabilities and increase potential growth-including diversifying 
away from dependence on commodity exports.
    Several countries in the region will hold elections in the coming 
months, important opportunities for these countries to renew their 
commitments to the shared values that have defined the hemisphere-the 
pursuit of greater economic opportunity and prosperity, in peace, 
security, and dignity. Voters will have the opportunity to choose 
leaders and policies that will strengthen democratic institutions, and 
work hard to address slow growth, corruption and crime.
China in Latin America
    Although no Latin American country is among China's top 10 
investment destinations, the over $100 billion that China has already 
invested in Latin America and the Caribbean is significant and the 
stock is certain to continue to grow. China has made headlines in Latin 
America through some large investments in countries that have poor 
governance, notably Venezuela and Equador. The largest share of China's 
ODI has gone to Brazil, a country with relatively good governance in 
Latin America.

    Question 2.  How does the Bank view China's interest in Latin 
America?

    Answer. I look forward to learning more about the IDB's engagements 
with China if confirmed. The IDB can play an important role by 
providing an example of high-standards investment that is consistent 
with international best practices.

    Question 3.  Does their increasing investment there raise any 
concerns?

    Answer. The economic importance of China to the region has been 
growing quickly, and the region's trade and investment with China can 
be beneficial if the terms are fair and market-oriented, allowing 
market forces to allocate resources efficiently. However, some Chinese 
investment is non-market based and poses risks towards weakening 
governance standards in the region. In China, the State's role in the 
economy and its relationship with markets has resulted in fundamental 
distortions across different segments of China's economy and has fueled 
trade imbalances. These trade imbalances need to be reduced, and 
China's trading relationships need to be more fair and reciprocal.

    Question 4.  Are the relationships mutually beneficial, or mostly 
in China's interest?

    Answer. China's demand for commodities positively contributed to 
Latin America's growth over the past decade, but the region must have a 
clear vision for what it hopes the relationship with China will be and 
ensure that Chinese trade and investment do not undercut the incentives 
to improve business environments, governance structures, and 
macroeconomic policies.
Venezuela--IADB Role and Resources
    Sixty billion dollars in foreign debt is hanging over the Venezuela 
economy. It will take more resources than any institution such as the 
IMF to match those needs. I know you and others in the regional are 
looking at the ways we can respond.

    Question 5.  Are the Bank's resources adequate for it to play its 
needed role?

    Answer. I look forward to learning more about the IDB's capacity if 
confirmed. My understanding is that the IDB currently has the capacity 
to play a role in supporting Venezuela if there is a positive change in 
Venezuela's political and economic governance.

    Question 6.  What are your views on the dynamics of the 
international participation in the coming crisis? The regional 
response? The role of China and Russia as major creditors?

    Answer. Recovery of the Venezuelan economy will require fundamental 
economic policy change, but also immediate humanitarian assistance and 
external financing to reactivate severely eroded productive capacity. I 
look forward to the day that this can be discussed more concretely, but 
I expect the costs may be quite large, and the process will not be 
short. International participation will be important, including from 
the IDB and other IFIs. I expect that coordination with the region will 
be a critical component to any assistance effort. I hope that China and 
Russia would also play a constructive role.
Corruption
    Major political news out of Latin America has included significant 
corruption scandals that have brought down governments in Brazil and 
Peru. I don't have to tell you that corruption is not just the root of 
much political turmoil in the region, it is a major threat to economic 
growth and stability.

    Question 7.  What is your view on the extent of the problem of 
corruption facing the Bank's mission, and what plans and tools do you 
have to combat it?

    Answer. As noted, corruption is a major constraint to private 
sector-led economic growth and poverty reduction in Latin America, 
which therefore impacts the IDB's ability to help the region's 
countries achieve its mission to promote growth and reduce poverty in 
the region. Promoting transparency and good governance and helping 
countries build capacity in areas like public financial management and 
basic service delivery are important areas of focus for IDB assistance. 
If confirmed, I look forward to advocating for the IDB to enhance its 
efforts to support the region in these areas even further. I understand 
that the IDB has robust accountability mechanisms and institutional 
policies in place. If confirmed, I will support the independence and 
strong functioning of the IDB's accountability units and advocate for 
continued implementation of high standards in areas like procurement 
and disclosure.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Eliot Pedrosa by Senator Benjamin L. Cardin

Commitment to Human Rights
    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Rule of law is the sine qua non for the promotion and 
protection of human rights and democracy. Throughout my career as an 
attorney, I have worked towards promoting respect for the rule of law 
in my private sector engagements as well as my pro bono, community, and 
government service.
    I have been involved in projects for the promotion of democracy and 
human rights throughout my career. As a law student, I had the 
opportunity to serve as a research assistant for the Harvard Institute 
for International Development's Central America Project, contributing 
to the publication of a book on legal reform in Central America. More 
recently, I have spoken as a panelist at Harvard Law School on the 
continued failure of the Cuban Government to respect democracy and 
human rights. Finally, through my service as Chairman of the Dean's 
Advisory Council of the Green School of International and Public 
Affairs at Florida International University, I provide support for the 
education and scholarship generated under the Green School's umbrella, 
such as the V clav Havel Program for Human Rights & Diplomacy.
    Domestically, my most lasting impact on human rights and democracy 
is through my service as a member and Vice Chairman of the Florida 
Third District Court of Appeal Judicial Nominating Commission, which 
recommends judicial candidates for appointment to Florida's 
intermediate appellate court for the region encompassing Miami-Dade 
County. A strong, independent judiciary is essential to the protection 
of individual liberties and a functioning democracy. My role in 
assisting in the selection of judges to serve in that role will have a 
lasting impact on the continued functioning of Florida's judiciary, and 
through it, our local democracy.

    Question 2.  What are the most pressing human rights issues at the 
Inter-American Development Bank? What are the most important steps you 
expect to take--if confirmed--to promote human rights and democracy at 
the IADB? What do you hope to accomplish through these actions?

    Answer. The most pressing human rights issues for the IDB are lack 
of respect for human rights and democratic freedoms in several 
countries in the Western Hemisphere, which hinder the IDB's ability to 
maximize its impact on promoting economic growth and reducing poverty 
throughout the region. If confirmed, I will work to limit IDB 
assistance to countries that violate human rights and advocate for 
projects that bolster transparency, rule of law, and good economic and 
social governance. I will also advocate for robust implementation of 
IDB's social and environmental safeguards and a strong Independent 
Consultation and Investigation Mechanism that responds to complaints 
from communities in the region if they feel they have been harmed by a 
project as the result of the IDB Group's non-compliance with its 
policies. My hope is that these actions will lead to IDB's assistance 
having positive impact on people's livelihoods while maintaining 
appropriate redress for anyone harmed by IDB's projects.

    Question 3.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the IADB in 
advancing human rights, civil society and democracy in general?

    Answer. The largest potential obstacle is that the countries in the 
region will not continue the tremendous gains in democratic governance, 
human rights, and economic reform of the past few decades and that 
freedoms will continue to erode in several countries. The IDB's mandate 
prevents it from engaging directly on political issues, including 
democracy promotion, so the key challenge will be to articulate how IDB 
assistance can only be effective in promoting growth and reducing 
poverty where there is respect for human rights and rule of law. If 
confirmed, I look forward to tackling this challenge.
Diversity
    Question 4.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will promote, mentor, and support staff who 
come from diverse backgrounds and underrepresented groups, consistent 
with fair management practices and relevant U.S. Government and IDB 
policies.

    Question 5.  What steps will you take to ensure each of the 
supervisors under your management at the IADB are fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I will use my oversight role on the IDB's 
Board of Directors to try to ensure that IDB management fosters an 
environment that is diverse and inclusive. I will also advocate for 
these issues to be considered, as appropriate, in the development and 
review of IDB's human resources policies.
Conflicts of Interest
    Question 6.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to carrying out my duties consistent 
with applicable conflict of interest laws and policies, and to 
reporting any potential misconduct of which I become aware to the 
appropriate authorities.

    Question 7.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to carrying out my duties consistent 
with applicable conflict of interest laws and policies, and to 
reporting any potential misconduct of which I become aware to the 
appropriate authorities.



                               __________

           Letter Urging the Confirmation of David Cornstein
                 as United States Ambassador to Hungary

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 5, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:55 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Johnny Isakson, 
presiding.
    Present: Senators Isakson [presiding], Gardner, Young, 
Cardin, Shaheen and Murphy.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. I call this hearing of the Senate Foreign 
Relations committee to order.
    I welcome all of you here, and I welcome our ranking 
member, Senator Shaheen. And Senator Young, glad that you are 
here, Senator Blunt as well.
    Today we will hear the testimony from three nominees to 
serve the United States of America in various positions.
    Georgette Mosbacher has been nominated to be the U.S. 
Ambassador to the great country of Poland.
    I have to interject a personal note. I know Senator Blunt 
is going to introduce her in a minute. But she and I had the 
pleasure of sharing a mutual friend for many years in life, Ms. 
Jeanne Ferst of Atlanta, who was a great Republican leader in 
our State and a great lady who passed on a few years ago. But 
she loved Georgette Mosbacher to death.
    Stephen Akard, who has been nominated to be the Director of 
the Office of Foreign Missions with the rank of Ambassador.
    And finally, Mark Rosen to serve as U.S. Executive Director 
of the International Monetary Fund for a term of 2 years.
    I want to thank you for your willingness to serve your 
nation. I want to welcome you and any family members that you 
have with you, and I hope, when your time comes to speak, that 
you will introduce any special guests or family members that 
you have with you.
    I know you may have colleagues who would like to introduce 
Ms. Mosbacher and Mr. Akard, and I am going to introduce both 
of them at this time. First will be Roy Blunt to introduce Ms. 
Mosbacher, then Senator Young to introduce Mr. Akard, and I 
will introduce Mr. Rosen.
    So with that said, Senator Roy Blunt from Missouri.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, thank you, Chairman Isakson and 
Senator Shaheen and Senator Young and others who will join this 
hearing perhaps later.
    It is really a great privilege for me to come and 
officially introduce Georgette Mosbacher to the committee. She 
is a valued friend of our family. She and my wife have been 
friends for a long time, and she and I have been friends for a 
long time.
    She has done so many things to be helpful to so many people 
and also had a great business career. She founded her own 
international business and marketing firm. From 2001 to 2015, 
she was the CEO of Borghese, which is a global cosmetics 
manufacturing company. She was appointed by President Obama to 
the United States Advisory Commission on Public Diplomacy. 
Georgette currently serves on the boards of the Atlantic 
Council, the Intrepid Fallen Heroes Fund, and the Business 
Executives for National Security.
    You mentioned, Mr. Chairman, whenever you talked about the 
great country of Poland, clearly Poland is an important country 
to us. To have a friend of the President, to have someone who 
understands our government and our public and private diplomacy 
and the way that Georgette does would be a tremendous benefit 
for our country and one of the most dependable friends in the 
world. It is an important country. We are in a position here 
with the help of your committee and the Senate to send just the 
right individual I think at this time. And I am glad to be here 
with you but particularly glad to be here with Georgette 
Mosbacher.
    Senator Isakson. Thank you very much, Senator Blunt.
    Senator Young?

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman, Ranking 
Member Shaheen.
    It is my honor to introduce Stephen Akard.
    Steve is the nominee to serve as Director of the Office of 
Foreign Missions with the rank of Ambassador. The Office of 
Foreign Missions has many important responsibilities related to 
U.S. diplomatic and consular missions abroad, as well as 
foreign missions here in the United States.
    Mr. Akard is a fellow Hoosier and a fellow graduate of the 
Indiana University McKinney School of Law. He has an 
outstanding combination of diplomatic experience as a Foreign 
Service officer with the Department of State and subsequent 
leadership experience in economic development on behalf of the 
State of Indiana.
    Three successive Indiana governors have relied on his 
advice on matters of economic development and international 
relations. For example, he spearheaded gubernatorial missions 
to China, Germany, Israel, Japan, and the UK with meetings at 
the highest levels of business and government.
    During his tenure in Indiana, the State strengthened its 
international relationships considerably, and the result has 
been significant new foreign direct investment and significant 
new job creation in Indiana associated with companies such as 
Toyota, Honda, Rolls Royce, BP, just to name a few. Indiana's 
international economic development efforts are widely admired, 
and Steve has played an important role in that effort.
    I would note Steve received two meritorious honor awards 
while serving in the Department of State, and he was awarded 
the distinguished alumni award from Indiana University, Purdue 
University of Indianapolis.
    I am confident he will bring those same leadership and 
management skills and critical thinking skills to the 
Department of State as the Director of the Office of Foreign 
Missions. I am pleased our committee is considering his 
nomination. I look forward to supporting your nomination.
    I would also like to acknowledge the presence of our other 
two nominees, Ms. Mosbacher and Mr. Rosen. Ms. Mosbacher, I 
would note parochially, you are also a proud graduate of 
Indiana University. So congratulations to all of you on your 
nominations.
    Thank you, Mr. Chairman.
    Senator Isakson. Thank you, Senator Young.
    In just a minute, we will turn to our nominees to make 
their opening statements, and you will have up to 5 minutes. 
And there is a big trap that opens under your desk if you talk 
longer than 5 minutes, and we will never hear from you again. 
So be sure to hold it within that, if you can. [Laughter.]
    Senator Isakson. But for your sanity, your whole statement 
will be entered in the record as soon as it is completed and 
will be there in perpetuity. So you will never be forgotten, I 
promise you, as long as you live.
    Mr. Rosen, it is a pleasure for me to introduce you. We had 
the chance to meet and talk a little bit outside before we came 
in today. And I was very interested in your nomination for a 
lot of reasons, but one of the big things I believe in is 
business, capitalism, and the fact that you do not tend to bomb 
people you trade with, you finance with, and you enjoy mutual 
benefits with. And certainly the International Monetary Fund is 
a key to American principles and ideals being spread around the 
world and materializing in terms of good friendships with our 
foreign countries, but also good businesses for our companies.
    American companies are never going to expand their market 
share unless they go overseas. Most of them have mature market 
shares in the United States. So it is important to have 
relationships like the IMF to be able to open those doors 
everywhere we can.
    I was particularly interested in your leadership of the 
Latin American investment banking at Bank of America Merrill 
Lynch, which is a great company with a great reputation, and 
also the fact that you worked with Credit Suisse, UBS, and 
Barclay's. I am not going to hold it against you that you went 
to Oxford. I am not going to hold it against you that you went 
to Harvard. But we are just awful glad that you got the degree 
from the school of hard knocks in Wall Street. You have a great 
reputation and come to us highly recommended, and we are proud 
to have you today.
    To all three of you, I hope you will submit your remarks 
for the record to be held and they will be held permanently. 
Any comments or additional questions you want for the record, 
we will hold the record open for 5 days after this hearing for 
you to amend your answer or amend the record any way that you 
want to, and you will have the opportunity to do so.
    Ms. Mosbacher, the country of Poland is a great friend of 
the United States and has been for years. I am a Swede and I 
remember what Raoul Wallenberg did in Hungary by saving over 
100,000 Jews from the Nazi Holocaust. I know Poland suffered 
during that time tremendously and has been a great friend of 
the United States for those years as have we been a great 
friend for them. So you are going to a very important post for 
our country at a very important time.
    Mr. Akard, you are in an interesting position because I do 
not know of any time the United States has ever had more balls 
in the air in international affairs than we have got right now. 
Whether it is North Korea, whether it is the South China Sea, 
wherever it might be, we are engaged heavily and will be even 
more so in the future. What you will do has such an important 
role to play with our ambassadors and our missions overseas, 
and the services that our ambassadors get, as well as what 
services we grant to foreign dignitaries to come to this 
country is going to be critically important. And I am sure you 
will do a great job with it.
    As you know from my introduction of you, Mr. Rosen, I know 
how important financial affairs are and the financing of 
financial transactions are and how the development of 
infrastructure depends on mutual sharing of information, 
knowledge, equity, and investment. So I know you will be a 
great representative of our country on the IMF. We appreciate 
you accepting that nomination, and I am proud to introduce you 
today.
    I will now turn it to our ranking member for any opening 
statement she would like to make.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman.
    I would also like to welcome each of our nominees this 
afternoon. You are being nominated for every important posts. I 
would also like to welcome your families who are here today. I 
understand that you serve along with the sacrifice of your 
families. So thank you for that.
    If confirmed, each of you will assume leadership roles 
dealing with foreign or economic policies. But in addition to 
the policy issues that you will be dealing with, you will also 
be responsible for leading dedicated career employees. I urge 
you to take full advantage of their expertise and to remain 
mindful of their nonpolitical status. Our foreign affairs 
professionals, both Foreign Service and Civil Service, are a 
national asset. And I know you join me in thanking them for 
their service to our country.
    Now, many members of this committee have expressed concern 
at the current administration's disregard, as reflected in its 
budget requests, for the value of American soft power to 
advance our interests. Retreat from our historical leadership 
role is simply not a realistic alternative in the 21st century. 
People around the world look to the United States for 
leadership, and I believe we must remain ready to take up this 
challenge as we have since World War II.
    Now, today we will consider Mark Rosen to be U.S. Executive 
Director of the International Monetary Fund, which is one of 
the multilateral institutions that make up this post-war world 
order. I have a particular connection to the IMF because it was 
conceived at a U.N. conference in Bretton Woods in New 
Hampshire in 1944, and the countries at that conference sought 
to build a framework for economic cooperation to avoid a 
repetition of the Great Depression of the 1930s, which 
contributed directly to the outbreak of World War II.
    Mr. Akard, you are our nominee for the State Department's 
Office of Foreign Missions, and this office carries out vital 
work to ensure that the principle of reciprocity is upheld in 
the treatment of U.S. diplomatic and consular missions abroad. 
This has taken on greater meaning with the shuddering of 
Russia's diplomatic facilities in response to the Kremlin's 
aggression toward the United States.
    And of course, we are also considering Georgette Mosbacher 
to be Ambassador to Poland. Poland has been by America's side 
in Iraq and Afghanistan, and we enjoy close cultural ties and 
shared values. Poland's free market economy is a post-Cold War 
success story. And while relations between Poland and the 
United States are positive, Poland's domestic governance in the 
areas of judicial independence and the rule of law are cause 
for concern.
    So in closing, Mr. Chairman, I would like to remind all of 
our nominees that the foundation of our leadership around the 
world is based on America's core values: freedom, human rights, 
justice, and rule of law. These are the values that continue to 
make the United States a compelling example for the world. They 
represent something that our authoritarian adversaries fear and 
cannot emulate. So, if confirmed, I urge each of you to keep 
these values at the forefront of everything you do as you 
represent the United States.
    Thank you, Mr. Chairman.
    Senator Isakson. Thank you very much, Senator Shaheen.
    And, Ms. Mosbacher, we will recognize you for 5 minutes.

   STATEMENT OF HON. GEORGETTE MOSBACHER, OF FLORIDA, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF POLAND

    Ms. Mosbacher. Thank you. Chairman Isakson, Ranking Member 
Shaheen, Senator Cardin, I would like to thank President Trump 
for nominating me as Ambassador to Poland. With the Senate's 
confirmation, serving as Ambassador to Poland will be the most 
solemn responsibility of my life.
    Joining me is my family: my sisters, Lyn and Melody, and my 
brother George, the redheads behind me. [Laughter.]
    Ms. Mosbacher. I regret that our 93-year-old mother, 
Dorothy Paulsin, could not be here. Mother passed away 10 weeks 
ago.
    We grew up in the Midwestern steel town of Highland, 
Indiana. My father was killed by a drunk driver when I was only 
7 years old. As the oldest child of four, I did my best to help 
Mom raise my siblings. I spent a lot of time with my maternal 
grandmother, Mary Bell, in East Chicago, Indiana. Grandma 
worked the midnight shift as a switcher for the Baltimore & 
Ohio Railroad. Her mother, my great grandmother, taught me to 
count and how to do my first budget. From all three women, I 
learned the value of a dollar and the meaning of grit.
    In East Chicago, Indiana, I was surrounded by Polish 
culture. The Chicago region had the greatest concentration of 
Poles outside Poland. Everywhere I turned, I saw these 
hardworking immigrants, deeply faithful, industrious people.
    I am an example of the American dream. I was the first in 
my family to attend college, working three jobs to pay tuition. 
Later, I built two branded global companies. While expanding 
sales worldwide, I learned about export-import law, 
regulations, and international supply chains and gained an 
appreciation for predictability, transparency, security, and 
the rule of law. All of my products were manufactured in New 
Jersey, made in the USA, and then exported all over the world.
    For over a decade, I have been a member and served on the 
board of Business Executives for National Security. I have 
traveled on behalf of BENS's missions for the State and Defense 
Departments to Afghanistan, Azerbaijan, Guantanamo Bay, 
Djibouti, the Baltic Peninsula, the Balkan mountains, to name 
just a few and experienced firsthand the logistical complexity 
and strategic planning that our military is dealing with every 
day to keep us free and safe.
    While serving on the board of the Atlantic Council, I had 
the good fortune to engage regularly with the foreign policy 
community across administrations, the private sector, and 
public policy organizations. This experience further shaped my 
appreciation for the commitment and engagement required to make 
the transatlantic relationship central to our national 
security.
    In 2016, I was honored to be unanimously confirmed by this 
Senate to serve on the U.S. Commission for Public Diplomacy. 
That service has shown me that the tools of public diplomacy 
can be leveraged to enhance economic opportunities, trade, and 
security.
    When President Trump traveled to Warsaw last year, he 
emphasized that the United States benefits from a strong 
Poland. This means a Poland that is sovereign and independent 
with strong constitutional freedoms, a Poland that is 
militarily secure, and a Poland that is economically robust and 
resilient. I would like to address these three areas.
    First, we recognize the sacrifices the Poles have made for 
our freedom and theirs as they have fought in solidarity with 
us and have died in support of our shared values and our shared 
history.
    I am aware of recent concerns about respect for democratic 
institutions in Poland, freedom of speech, the independence of 
the judiciary, and the rule of law, and I am ready to voice our 
concerns, if I am confirmed as Ambassador.
    Second, Poland is now an important military leader in both 
the EU and NATO. We appreciate that it is one of the few NATO 
countries which has consistently met its obligation of 2.5 
percent of its GDP on defense spending and is well into a $40 
billion modernization of their armed forces.
    A more secure Poland means a more energy-independent 
Poland. Helping the Polish people diversify their energy 
choices provides an opportunity for innovative American energy 
companies. Poland and its neighbors should not be held hostage 
to a single supplier of energy.
    Third and finally, Poland is a great economic success 
story. It has tripled its GDP per capita since 1990, enjoying 
the strongest economic growth of any nation in Central and 
Eastern Europe. My top priority, if confirmed, will be to 
encourage American businesses to expand trade between our 
nations. We must increase our exports to Poland's 40 million 
consumers to create American jobs back at home and to ensure 
American companies are treated fairly on a level playing field.
    If confirmed, I will work to preserve and strengthen our 
bilateral political, economic, security collaboration, 
including on matters of NATO, Ukraine, Russia, the Community of 
Democracies, the Three Seas Initiative, and the Organization 
for Security and Cooperation in Europe.
    A Poland that guarantees the freedom of its people, 
protects its military security and that of its allies, and 
creates economic growth and opportunity for all will be the 
most effective ally the United States has in the region. A 
strong Poland means a stronger America.
    Mr. Chairman, Madam Ranking Member, members of the 
committee, thank you for this opportunity to appear here today.
    [Ms. Mosbacher's prepared statement follows:]


               Prepared Statement of Georgette Mosbacher

    Chairman Isakson, Ranking Member Shaheen, and distinguished members 
of the committee, I would like to thank President Trump for nominating 
me as Ambassador to Poland. With the Senate's confirmation, serving as 
Ambassador to Poland will be the most solemn responsibility of my life.
    Joining me is my family: my sisters Lyn and Melody, and my brother 
George.
    I regret that our 93-year-old mother, Dorothy Paulsin, could not be 
here. Mother passed away 10 weeks ago. We grew up in the Midwestern 
steel town of Highland, Indiana. My father was killed by a drunk driver 
when I was only seven years old. As the oldest child of four, I did my 
best to help Mom raise my siblings. I spent a lot of time with my 
maternal grandmother, Mary Bell, in East Chicago, Indiana. Grandma 
worked the midnight shift as a switcher for the Baltimore & Ohio 
Railroad. Her mother--my great-grandma--taught me to count, and how to 
do my first budget. From all three women, I learned the value of a 
dollar and the meaning of grit.
    In East Chicago, Indiana, I was surrounded by Polish culture. The 
Chicago region had the greatest concentration of Poles outside Poland. 
Everywhere I turned, I saw these hard-working immigrants--deeply 
faithful, industrious people.
    I am an example of the American Dream. I was the first in my family 
to attend college, working three jobs to pay tuition. Later, I built 
two branded global companies. While expanding sales worldwide, I 
learned about export-import law, regulations, and international supply 
chains--and gained an appreciation for predictability, transparency, 
security, and the rule of law. All of my products were manufactured in 
New Jersey--made in the U.S.A.--and then exported all over the world.
    For over a decade I have been a member and served on the board of 
Business Executives for National Security. I have traveled on behalf of 
BENS's missions for the State and Defense Departments, to Afghanistan, 
Azerbaijan, Djibouti, the Baltics, and the Balkans, to name just a few, 
and experienced firsthand the logistical complexity and strategic 
planning that our military is dealing with every day to keep us free 
and safe.
    While serving on the board of the Atlantic Council, I had the good 
fortune to engage regularly with the foreign policy community across 
administrations, the private sector, and public policy organizations. 
This experience further shaped my appreciation for the commitment and 
engagement required to make the trans-Atlantic relationship central to 
our nation's security.
    In 2016 I was honored to be unanimously confirmed by this Senate to 
serve on the U.S. Commission for Public Diplomacy. That service has 
shown me that the tools of public diplomacy can be leveraged to enhance 
economic opportunity, trade, security, and of course bilateral 
relations through educational and cultural exchanges.
    When President Trump traveled to Warsaw last year, he emphasized 
that the United States benefits from a strong Poland. This means a 
Poland that is sovereign and independent with strong constitutional 
freedoms; a Poland that is militarily secure; and a Poland that is 
economically robust and resilient. I'd like to address each of those 
three areas.
    First, we recognize the sacrifices the Poles have made ``for our 
freedom and yours'' as they have fought in solidarity with us and have 
died in support of our shared values and our shared history.
    I am aware of recent concerns about respect for democratic 
institutions in Poland--freedom of speech, the independence of the 
judiciary, and the rule of law--and I am ready to voice our strong 
support for these essential freedoms if I am confirmed as Ambassador.
    Second, Poland is an important military leader in NATO. We 
appreciate that it is one of the few NATO countries that meets, and 
plans to exceed, its obligation of spending 2.0 percent of GDP on 
defense, and is well into a $40 billion modernization of its armed 
forces.
    A more secure Poland means a more energy-independent Poland. 
Helping the Polish people diversify their energy choices provides an 
opportunity for innovative American energy companies. Poland and its 
neighbors should not be held hostage to a single supplier of energy.
    Third and finally, Poland is a great economic success story: it has 
tripled its GDP per capita since 1990, enjoying the strongest economic 
growth of any nation in Central and Eastern Europe. My top priority if 
confirmed will be to encourage American businesses to expand trade 
between our nations. We must increase our exports to Poland's 38 
million consumers--to create American jobs back home, and to ensure 
American companies are treated fairly on a level playing field.
    If confirmed, I will work to preserve and strengthen our bilateral 
political, economic, and security collaboration, including on matters 
of NATO, Ukraine, Russia, the Community of Democracies, the Three Seas 
Initiative and the Organization for Security and Cooperation in Europe.
    A Poland that guarantees the freedom of its people, provides for 
its security and that of its allies, and creates economic growth and 
opportunity for all will be the most effective ally the United States 
has in the region. A strong Poland means a stronger America.
    Mr. Chairman, Ranking Member Shaheen and members of the committee, 
thank you for the opportunity to appear before you today.


    Senator Isakson. Thank you, Ms. Mosbacher.
    Mr. Akard?

 STATEMENT OF STEPHEN AKARD, OF INDIANA, TO BE DIRECTOR OF THE 
    OFFICE OF FOREIGN MISSIONS, WITH THE RANK OF AMBASSADOR

    Mr. Akard. Mr. Chairman, Ranking Member Shaheen, 
distinguished members of the committee, it is an honor to be 
with you here today as President Trump's nominee to be the 
Director of the Office of Foreign Missions at the Department of 
State. I am grateful for the confidence he has placed in me 
and, should I be confirmed, for the opportunity to work with 
Secretary Pompeo and the many talented and dedicated people at 
the State Department.
    I would like to thank my family, my wife Kay and our three 
daughters, Julianne, Claire, and Hope, who are here with me 
today and have been a source of boundless love and support.
    As a fellow Hoosier, I would also like to thank Senator 
Young for his generous and kind introduction and recognize the 
important contributions to the functioning of this committee.
    I appreciate the role of the Office of Foreign Missions in 
advancing our foreign policy and our national security 
interests. If confirmed, I will be dedicated to furthering the 
important objectives established in Foreign Missions Act.
    I entered the Foreign Service 20 years ago. I served 
overseas at the U.S. Consulate General in Mumbai, India, and 
during 9/11 at the embassy in Brussels, Belgium. Following that 
tour, I served in Washington, D.C. in the Executive Secretariat 
on the ``Line'' where I advanced trips around the world for 
then-Secretary Colin Powell.
    I returned home to Indiana for a new chapter of my 
professional career where I was fortunate to work with the 
Indiana Economic Development Corporation, or IEDC. At the IEDC, 
I pursued international economic development projects for the 
State of Indiana, served as general counsel, and later as chief 
of staff, and had the honor of advising three successive 
governors and working with them to bring jobs and investment 
back home.
    I brought the skills I honed as a Foreign Service officer 
to the State level. Our successes were remarkable. In the last 
4 years of my tenure alone, the State of Indiana attracted more 
than 20,000 new job commitments through foreign direct 
investment and more than $6 billion in capital investments. If 
confirmed, I will bring these managerial and global experiences 
to the position of the Director of Foreign Missions.
    The Office of Foreign Missions plays a critical role in 
four distinct areas: first, employing reciprocity to ensure 
equitable treatment for U.S. diplomatic and consular missions 
and personnel; second, regulating the activities of foreign 
missions in the U.S. in a manner that will protect our foreign 
policy and national security interests; third, protecting the 
U.S. from abuses of privileges and immunities by members of 
foreign missions; and fourth, providing services and assistance 
to foreign missions in the U.S. in order to assure appropriate 
privileges, benefits, and services on a reciprocal basis.
    The Foreign Missions Act has positively impacted the 
environment in which U.S. diplomatic and consular missions 
function overseas and created a secure basis to manage the 
activities of foreign missions operating here at home.
    Mr. Chairman, the Department of State faces enormous 
challenges strengthening our security and prosperity. If 
confirmed, I pledge my utmost to implement the objectives of 
the Foreign Missions Act on behalf of our personnel overseas 
and to defend our national security interests with respect to 
foreign missions operating here in the U.S.
    Thank you, Mr. Chairman. I look forward to any questions 
the committee may have.
    [Mr. Akard's prepared statement follows:]

                  Prepared Statement of Stephen Akard

    Mr. Chairman, Ranking Member Shaheen, distinguished members of the 
committee, it is an honor to be with you today as President's Trump's 
nominee to be the Director of the Office of Foreign Missions at the 
Department of State. I am grateful for the confidence he has placed in 
me and, should I be confirmed, for the opportunity to work with 
Secretary Pompeo and the many talented and dedicated people at the 
State Department.
    I would like to thank my family--my wife Kay, and our three 
daughters, Julianne, Claire, and Hope, who are here with me today and 
have been a source of boundless love and support. As a fellow Hoosier, 
I also would like to recognize the important contributions to the 
functioning of this committee of Senator Young.
    I appreciate the role of the Office of Foreign Missions in 
advancing our foreign policy and our national security interests. If 
confirmed, I will be dedicated to furthering the important objectives 
established in the Foreign Missions Act.
    I entered the Foreign Service twenty years ago. I served overseas 
at the U.S. Consulate General in Mumbai, India, and during 9/11 at the 
U.S. Embassy in Brussels, Belgium. Following that tour, I served in 
Washington DC, in the Executive Secretariat, on the ``Line,'' where I 
advanced trips around the world for then-Secretary Colin Powell.
    I returned home to Indiana for a new chapter of my professional 
career where I was fortunate to work with the Indiana Economic 
Development Corporation (IEDC). At the IEDC, I pursued international 
economic development projects for the State of Indiana, served as 
general counsel, and later as chief of staff, and had the honor of 
advising three successive Governors and working with them to bring jobs 
and investment back home.
    I brought the skills I honed as a Foreign Service Officer to the 
state level. Our success was remarkable. In the last four years alone, 
the State of Indiana attracted more than 20,000 new job commitments 
through foreign direct investment and more than $6 billion in capital 
investments. If confirmed, I will bring these managerial and global 
experiences to the position of Director of the Office of Foreign 
Missions.
    The Office of Foreign Missions plays a critical role in four 
distinct areas: First, employing reciprocity to ensure equitable 
treatment for U.S. diplomatic and consular missions and personnel; 
second, regulating the activities of foreign missions in the U.S. in a 
manner that will protect our foreign policy and national security 
interests; third, protecting the U.S. from abuses of privileges and 
immunity by members of foreign missions; and, fourth, providing 
services and assistance to foreign missions in the U.S. in order to 
assure appropriate privileges, benefits, and services on a reciprocal 
basis.
    The Foreign Missions Act has positively impacted the environment in 
which U.S. diplomatic and consular missions function overseas and 
created a secure basis to manage the activities of foreign missions 
operating here at home.
    Mr. Chairman, the Department of State faces enormous challenges 
strengthening our security and prosperity. If confirmed, I pledge my 
utmost to implement the objectives of the Foreign Missions Act on 
behalf of our personnel overseas and to defend our national interests 
with respect to foreign missions operating in the U.S.
    Thank you and I look forward to any questions you may have.


    Senator Isakson. Thank you, Mr. Akard.
    Mr. Rosen?

 STATEMENT OF MARK ROSEN, OF CONNECTICUT, TO BE UNITED STATES 
  EXECUTIVE DIRECTOR OF THE INTERNATIONAL MONETARY FUND FOR A 
                       TERM OF TWO YEARS

    Mr. Rosen. Thank you, Chairman Isakson, Ranking Member 
Shaheen, and members of the committee, for the opportunity to 
appear before you today.
    I am honored that President Trump has nominated me to serve 
as the United States Executive Director of the International 
Monetary Fund, and I am grateful to Secretary Mnuchin and Under 
Secretary Malpass for their confidence and support.
    I am delighted to have my wife Ines, my daughter Katerina, 
and my son Ben here today. Katerina is a graduate of Vanderbilt 
University and works on the production of documentaries in New 
York. And Ben is a graduate of Williams College and works as a 
health care policy consultant in Boston. I am very grateful to 
my wife for all she has done in raising these two children of 
whom I am very proud and also for her encouragement and support 
to me in pursuing my career focused on Latin America over the 
last 25 years.
    It would be an honor to serve as the United States 
Executive Director of the International Monetary Fund, and my 
willingness to serve in this role is because for some time, I 
have been interested in public service, as I believe I owe a 
sincere debt of gratitude to this country for the great 
opportunities it has given me and my family.
    I was born in the United Kingdom and came to the USA first 
in 1980 as an 18-year-old traveling from east to west, and I 
immediately realized what a great and beautiful country this 
is. I vowed to come back here to study when I had the resources 
to do so. And in 1986, I returned for an MBA at the Harvard 
Business School, which was a tremendous opportunity I will 
always treasure.
    Finally, I accepted an opportunity to work in U.S. 
investment Banking in 1993, and my wife, who was born and 
raised in Peru, and I moved to Miami, Florida where later our 
children were born.
    In 2006, we became proud U.S. citizens. I believe now, 
after more than 27 years of living in the United States, this 
is the time to give something back to our country, and if 
confirmed by the Senate, I will do all I can to serve in this 
role to the best of my ability.
    I have spent most of my 33-year professional career in the 
financial markets of emerging market countries as an investment 
banker working with financial institutions and companies, 
raising capital to support economic development, particularly 
in Latin America. From 1998 to 2010, I was head of Latin 
America Financial Institutions at Credit Suisse in New York. In 
2010, I joined Bank of America Merrill Lynch where for 5 years 
I was head of Latin American Investment Banking, managing an 
approximately 100-person team and co-managing a large loan 
book, helping companies and governments across the region 
access capital. I am now Chairman of that group.
    In addition to my practical experience, I have an academic 
background in and lifelong interest in political and economic 
policy. As a result of my extensive involvement in emerging 
markets, I have had the opportunity to see firsthand the 
potential and the challenges emerging countries face, as well 
as the positive impact governments can have when they pursue 
sensible macroeconomic policies that bring stability and 
growth.
    If confirmed, I will work vigorously to improve the 
functioning of the IMF and to further this administration's 
principal objectives for this important institution. As I 
understand them, these are for the IMF to promote more balanced 
and sustainable global growth, reduce the likelihood of 
financial crises, and strengthen economic governance and 
capacity of its member states. These objectives are all 
critical to advancing U.S. growth and prosperity. In addition, 
if confirmed, as Secretary Mnuchin has recently requested of 
the IMF, I will do all I can to encourage the IMF to streamline 
its program conditions to make them more effective, more 
effectively tackle corruption, and boost debt transparency and 
sustainability, particularly in its low-income member 
countries.
    Thank you again, Chairman Isakson, Ranking Member Shaheen, 
for this opportunity to appear before you, and I would be 
pleased to answer any questions you or the committee may have.
    [Mr. Rosen's prepared statement follows:]


                    Prepared Statement of Mark Rosen

    Thank you Chairman Isakson, Ranking Member Shaheen and members of 
the committee for the opportunity to appear before you today. I am 
honored that President Trump has nominated me to serve as the U.S. 
Executive Director of the International Monetary Fund (IMF), and I am 
grateful to Secretary Mnuchin and Under Secretary Malpass for their 
confidence and support.
    I am delighted to have my wife Ines, my daughter Katerina and my 
son Ben here today. Katerina is a graduate of Vanderbilt University and 
works on the production of documentaries in New York, and Ben is a 
graduate of Williams College and works as a healthcare policy 
consultant in Boston. I am very grateful to my wife for all she has 
done in raising these two children of who I am very proud and also for 
her encouragement and support to me in pursuing my career focused on 
Latin America over the last 25 years.
    It would be an honor to serve as the U.S. Executive Director of the 
International Monetary Fund, and my willingness to serve in this role 
is because for some time, I have been interested in public service, as 
I believe I owe a sincere debt of gratitude to this country for the 
great opportunities it has given me and my family.
    I was born in the United Kingdom, and came to the U.S.A. first in 
1980 as an 18-year-old traveling from east to west and immediately 
realized what a great and beautiful country this is. I vowed to come 
back here to study when I had the resources to do so and in 1986, I 
returned for an MBA at the Harvard Business School, which was a 
tremendous opportunity I will always treasure. Finally, I accepted an 
opportunity to work in U.S. investment banking in 1993, and my wife-who 
was born and raised in Peru-and I moved to Miami, Florida where later 
our children were born. In 2006, we became proud U.S. citizens. I 
believe now, after more than 27 years of living in the United States, 
this is the time to give something back to our country, and if 
confirmed by the Senate, I will do all I can to serve in this role to 
the best of my ability.
    I have spent most of my 33 year professional career in the 
financial markets of emerging market countries as an investment banker 
working with financial institutions and companies, raising capital to 
support economic development, particularly in Latin America. From 1998 
to 2010, I was head of Latin America Financial Institutions at Credit 
Suisse in New York. In 2010, I joined Bank of America Merrill Lynch, 
where for five years, I was Head of Latin American Investment Banking, 
managing an approximately 100 person team and co-managing a large loan 
book, helping companies and governments across the region access 
capital. I am now chairman of that group.
    In addition to my practical experience, I have an academic 
background in, and lifelong interest in political and economic policy. 
As a result of my extensive involvement in emerging markets, I have had 
the opportunity to see firsthand the potential and the challenges 
emerging countries face, as well as the positive impact governments can 
have when they pursue sensible macroeconomic policies that bring 
stability and growth.
    If confirmed, I will work vigorously to improve the functioning of 
the IMF and to further this administration's principal objectives for 
this important institution. As I understand them, these are for the IMF 
to promote more balanced and sustainable global growth, reduce the 
likelihood of financial crises, and strengthen economic governance and 
capacity of its member states. These objectives are all critical to 
advancing U.S. growth and prosperity. In addition, if confirmed, as 
Secretary Mnuchin has recently requested of the IMF, I will do all I 
can to encourage the IMF to streamline its program conditions to make 
them more effective, more effectively tackle corruption, and boost debt 
transparency and sustainability, particularly in its low income member 
countries.
    Thank you again for this opportunity to appear before you and I 
would be pleased to answer any questions you may have.


    Senator Isakson. Thank you very much, Mr. Rosen.
    I am going to take the liberty of being the designated 
chairman here to act like a chairman and make the rules. 
Senator Murphy showed up here and I appreciated him coming. 
Although I would normally lead off questions as chairman, I am 
going to give him a little early warning so you are going to 
have a chance. You have got a constituent here. We have talked 
about your service to the people of Connecticut in your absence 
earlier and it was a good conversation. I know Mr. Rosen would 
love to talk to you again and love to receive your questions. 
So on to Senator Murphy for any questions he might have.
    Senator Murphy. Great. Thank you very much, Mr. Chairman.
    Not only did Mr. Rosen make a wise choice in his place of 
residence, but his son made a wise choice in his choice of 
college. So as a Nutmegger and as a Williams College Eph--I 
will explain to you, Mr. Chairman, what that means later. 
[Laughter.]
    Senator Murphy. I appreciate your willingness to serve.
    Senator Isakson. I cannot wait. [Laughter.]
    Senator Murphy. Just one question for you, Mr. Rosen.
    The IMF is traditionally a pro-free trade organization. In 
the past, it has clashed with the Trump administration and 
officials over some basic economic assumptions. In your mind, 
how does the U.S. imposition of aluminum and steel tariffs and 
any other retaliatory actions by other countries--how does that 
affect the IMF's loan-making process? What do you sort of 
foresee as the interaction between this increasing war of 
actions and words on trade between the United States and other 
countries and the IMF's ability to do their job and your 
ability to do the job at the IMF?
    Mr. Rosen. I think that is a very good question, Senator.
    I think the IMF--its core mission is to try to minimize 
global trade imbalances. That was one of the statements and 
objectives that was in the core founding mission of the IMF 
when it was founded back in the mid-1940s. So the IMF plays a 
very, very important role in trying to encourage countries to 
manage their trade positions in a way that promotes global 
growth. And I think the IMF has done a reasonable job of doing 
that, but I think it could be a louder advocate for trying to 
restore more balance in trading relations between countries.
    So clearly what you mentioned earlier is a background to 
that, but I think this I hope will allow the IMF to raise this 
back to the top of its agenda to try and make as much progress 
as we can to create free, fair, and reciprocal trade which is I 
think what we all want.
    Senator Murphy. Ms. Mosbacher, thank you very much for 
spending time with me. As one of the heads of the Poland Caucus 
here in the Senate, I am excited to work with you when you take 
up post.
    I think we had the chance to talk about this, and I wanted 
to ask you on the record about how you think that the embassy 
and you are going to interact with Poland on the issue of 
immigration. Poland is one of a small handful of countries that 
has not accepted the number of refugees that was set out in EU 
policy. Obviously, we have effectively closed our doors to 
refugees here in the United States. Traditionally we have tried 
to work with European countries to be part of the solution, not 
part of the problem with respect to the continued flow of 
refugees into the continent.
    What do you foresee as the message you will be bringing to 
Poland on the question of their immigration and refugee policy?
    Ms. Mosbacher. Thank you, Senator, for the question.
    Poland has been very clear with respect to refugees. They 
have not been willing to take any refugees.
    If confirmed, I will certainly work with the Polish 
Government to see how we can work that situation where they do 
their fair share. That may be harder than it sounds, but I do 
think that we have shared values and those values are to be 
mindful of those people who are unfortunately under very 
difficult circumstances.
    Senator Murphy. Unfortunately, I think you are probably 
right that these days, the administration there and the 
administration here have shared values. I do not know that 
those values are values related to allowing refugees to come 
into the country.
    Just a quick other question. This is prompted by some 
remarks that our Ambassador to Germany made this weekend that 
got quite a bit of news weighing in on his expressed desire to 
empower political conservatives throughout Europe, which seems 
to many of us to be an unwarranted interference in political 
matters abroad, something that our diplomats try to stay out 
of.
    Just for the record, do you think it is appropriate for 
Ambassadors to be weighing in on one side or the other of a 
political debate or a partisan debate overseas?
    Ms. Mosbacher. Senator, I do not. I think it is our policy, 
if I am confirmed as Ambassador, to be bipartisan not only in 
the country but at home as well in order to achieve the mission 
that I am given. I do not think it is appropriate.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you for your straightforward answers.
    Senator Isakson. Thank you. If you want to stay and would 
like a follow-up question, we will probably have some time. So 
let me know.
    Mr. Rosen, we had a good conversation outside, and I have 
to tell you that I think every time I heard you speak, I think 
of Rex Harrison. You have got the best accent possible. You 
ought to be a great negotiator with that. It is melodic. You 
will put people to sleep while you are picking their pockets. 
[Laughter.]
    Senator Isakson. A great talent to have and we are glad 
that you have got it.
    I should know this, but I do not. What constitutes the 
governing board of the IMF?
    Mr. Rosen. Well, there are three levels, Senator. The first 
one is the body where the Treasury Secretary Mnuchin and other 
finance ministers sit, and that is a body that meets I think 
once a year. And then under that is the body of all the major 
central bank governors. They have a committee as well. And then 
the third level, which is what I would be part of, is--I 
believe it is a 19-member executive board. As you know, a 
number of the countries have their own representatives on that 
executive board and some countries are grouped together 
because, obviously, there are 189 members of the IMF, so not 
everybody can have a member of the executive board.
    Senator Isakson. The reason I asked the question is the 
United Nations, of course, from time to time is controversial 
in this country because of its makeup or some of the positions 
that it takes. But it has a unique makeup being the body of the 
General Assembly of the United Nations, but the Security 
Council, 13 nations over it, which can veto just about 
anything--any member of that can veto about anything.
    Is the 19-member advisory committee--or that last group--do 
they have a similar role with the IMF that the Security Council 
has with the United Nations?
    Mr. Rosen. I would say similar. I mean, certainly as you 
know, the United States is the largest shareholder of the IMF, 
and it does have essentially veto power over important matters 
that occur at the IMF because they require an 85 percent vote, 
and the United States has, I think, about a 16.7 percent 
shareholding or so of the IMF. So we do have an important veto 
power I suppose as we do at the United Nations. And only the 
larger countries are individually represented at the IMF. So it 
is somewhat similar. I think that is a good analogy.
    Senator Isakson. Mr. Akard, you have a really important 
role. I referred to earlier who would have thought we would be 
engaging with North Korea, with China, with Syria, with all the 
games that we have right now in the world. Our soft power that 
Senator Shaheen referred to to me is also very important in 
these various negotiations that we have got going on around the 
world. In fact, I have always hoped that our strength would 
always be in our soft power because we had a strong military 
power, if we had to call on it.
    Your role is going to be seeing to it that soft power is as 
powerful as it can possibly be. I said this in a hearing with 
Secretary Pompeo and the CIA a while back. There have been some 
that have questioned the motivation and the excitement and the 
enthusiasm in the State Department right now because they have 
been through some rough times. In part, you will have a role in 
what the attitude of the members of the State Department are.
    What role do you see you would have in helping with a 
strong enthusiasm for them to do the job and a strong pride in 
the job that they have?
    Mr. Akard. Senator, thank you for the opportunity to 
explore the relationship with the OFM and the broader State 
Department. If confirmed, I would hope to bring some of the 
enthusiasm that Secretary Pompeo has brought into the 
Department over the last few weeks to encourage and show that 
there is swagger back at the State Department and there is an 
important role. I hope that by leading the Office of Foreign 
Missions, I can show that at least to the staff there that 
their voices are important and they have an important role to 
play in our national security. So if I am confirmed, I would 
hope to encourage that, spread that message among Foreign 
Service officers and Civil Service officers who do admirable 
work on behalf of our country. It should be appreciated and 
recognized, and I will do my part to see that that is the case.
    Senator Isakson. Well, that is the answer I was hoping I 
would get because I think that you are exactly right in what 
you have just expressed. I think your role can be essential 
because the State Department and the soft power of our country 
is still the biggest strength we have got if we have a strong 
military backing. And we are coming back in the funding of our 
military now to have both those one-two punches in place.
    But diplomacy is going to be tested, and our willingness to 
be good diplomats and support our diplomatic programs around 
the world and have the very best we can have in those agencies 
is important. And I am sure you will fill that role.
    Senator Shaheen will be back in just a second.
    Ms. Mosbacher, this is personal privilege. When is the last 
time you were in Atlanta and saw Jeanne Ferst? Do you remember?
    Ms. Mosbacher. At this stage, my memory----
    Senator Isakson. Mine is bad too.
    Ms. Mosbacher. I am trying to think. It was a while. It has 
been several years.
    Senator Isakson. She was a great lady. She really loved 
your contributions.
    Ms. Mosbacher. A special person.
    Senator Isakson. And your husband's contribution too.
    Ms. Mosbacher. Yes. Thank you.
    Senator Isakson. Mr. Rosen, the IMF finance of developing 
countries around the world and infrastructure in developing 
countries, things like Electrify Africa, some of the programs 
that have been talked about in terms of infrastructure--how 
much infrastructure investment in developing nations of the 
world does the IMF sponsor or take on or in some way guarantee?
    Mr. Rosen. Senator, the IMF plays an important role mainly 
more in terms of a sort of if a country has financing issues, 
external financing and trade issues, and it works very closely 
with its partner on those issues, which is the World Bank. And 
the World Bank and the IMF obviously sit next to each other, 
and they work on projects together frequently. If a country has 
financing problems relating mainly to its balance of payments 
issues or external debt issues, then infrastructure projects 
and other financing projects become very difficult to continue 
with. And so the IMF has to work very closely with the World 
Bank on those kinds of issues.
    Senator Isakson. If I recall correctly--and please correct 
me if I am wrong--but the nation of Israel ran into some 
trouble with its own internal budget here a few years ago on 
financing. And they fixed it by a recommended program by the 
World Bank, and I think the IMF was a part of the body that 
made the recommendation. That was to go to a biennial budgeting 
process in terms of the way they did their spending of their 
discretionary spending in Israel. Is that correct?
    Mr. Rosen. I am not familiar with that, so I have to get 
back to you and check that. But it sounds right. It sounds 
right.
    Senator Isakson. Because I personally have thought one of 
our biggest challenges as a country--and we got lots of them, 
but certainly our debt and our deficit are both big problems. 
But when you get to $20 trillion, you are talking about real 
money, as Everett Dirksen said a few years ago in Washington. 
And it is very important that we get our arms our 
appropriations and our expenditures and our discretionary 
expenditures. And I think a biennial budget where you 
appropriate in even numbered years but you do oversight and 
oversight only in odd numbered years helps you to get a handle 
on where your money is going or where you might find money 
rather than raising taxes or raising debt in terms of making a 
new investment.
    And I just did not know if you were familiar with what had 
happened because Israel I know changed their process for a 
while, and it solved their economic problems for a while by 
using biennial budgeting.
    Mr. Rosen. That sounds very interesting, Senator, and I 
would like to look into that further with you and have further 
discussions, if I am confirmed.
    Senator Isakson. Ms. Mosbacher, what was your last 
business? You had a 15-year business your last one was a part 
of.
    Ms. Mosbacher. Yes. I manufactured and exported toiletries, 
hair care, cosmetics, body care around the world.
    Senator Isakson. You know, I was very proud of the 
reference you made to Poland reaching the 2.5 percent goal in 
terms of its share of funding for defense and NATO.
    Ms. Mosbacher. Yes. They are one of the few countries.
    Senator Isakson. One of the few?
    And we have got to do more of that as a country. We can 
always be critical of people for not doing enough, but we 
sometimes do not brag about the ones who do everything or do as 
much as they should. And I think one of the ways you make 
better partners with those who are not so good is to brag about 
the ones who are so good. Chambers of Commerce are always 
trying to get new members. I tell them you ought to go first 
save your old members before you bring in some new ones because 
you are going to lose them if you do not. And I think that is 
very important to do from a membership standpoint in terms of 
the United States of America and the various places we will be.
    Are you familiar with what is going on in Eastern Europe on 
anti-Semitism?
    Ms. Mosbacher. Yes, I am, Senator. Unfortunately, it has 
been sparked by a Holocaust law that Poland passed recently. 
And if confirmed, I would certainly work with Poland to make 
sure that any legislation they passed clearly does not--we 
cannot tolerate any kind of bigotry. And this is fundamental to 
our values. And I would work with Poland to make sure that they 
did not include that kind of thing in their legislation.
    Senator Isakson. I am sorry. Would you repeat that last 
sentence?
    Ms. Mosbacher. I said I would work with Poland to make sure 
that before they put out any kind of legislation, that it did 
not incite bigotry. That is unacceptable--intolerance in any 
form.
    Senator Isakson. And it is unacceptable of any country in 
the world not----
    Ms. Mosbacher. Any country in the world.
    Senator Isakson. What has happened in Eastern Europe is 
there has been a little bit of an uprising of anti-Semitism. I 
know as a Swede I am familiar with what goes on in Stockholm 
and in Sweden and really in that part of the world, and there 
have been some outcroppings of that around that part of the 
world as well. And it is something we want it to get legs or 
get strength or get a body to it because if it does, it is bad 
for the whole world. The Polish people have been so great and 
such a great partner of the United States of America. And I 
know you are going to be a great representative of us to them 
to see to it that we all work towards making the kind of 
decisions that are fair and equitable to everyone and not 
critical of just one.
    I am going to ask one more question and then if Ms. Shaheen 
does not get here, we are going to be finished.
    I ask all that I interview for these jobs what is the one 
reason that you could give me more than any other that you 
accepted the appointment and put yourself up for this 
confirmation. Mr. Rosen?
    Mr. Rosen. Senator, a great question. I think the main 
reason is because I wanted to serve this country and pay 
something back to it for what it has done for me since I have 
lived here over many years. And I hope that the experience that 
I can bring to the job will be valuable to the United States in 
the role as U.S. Executive Director of the IMF. But I am hoping 
to give something back to this great country.
    Senator Isakson. I can assure you it will be important, and 
that is exactly the right answer.
    Mr. Akard?
    Mr. Akard. Senator, I entered the Foreign Service a little 
over 20 years ago because of a drive to do something for my 
country and be of service and utilize an interest in global 
affairs. In the meantime, I have had a number of experiences 
both overseas on behalf of the U.S. Government but also in my 
home State of Indiana working on business matters and working 
for the Government there. I believe I have developed over that 
time some other skills that would be of value, and it is an 
opportunity and great honor for me, if I am confirmed, to again 
have a chance to give back and serve my country. That has been 
the driving force for my interest.
    Senator Isakson. Thank you very much.
    Ms. Mosbacher?
    Ms. Mosbacher. Senator, in this last chapter in my life, I 
have the opportunity to take all the experiences that I have 
had in business and in working with our military and our 
veterans and be able to serve my country is the greatest honor 
and something that I always wanted to do. Had I known enough 
early on in my life, I probably would have signed up for the 
military. But instead I have worked with our military and our 
great veterans. And to take this experience and now be able to 
serve my country--there is no greater honor.
    Senator Isakson. Well, I think this is not going to be your 
last chapter, but it is going to be your best chapter.
    Ms. Mosbacher. Thank you, Senator.
    Senator Isakson. Thank you very much for your willingness 
to serve.
    We stand adjourned.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
           Georgette Mosbacher by Senator Benjamin L. Cardin

    Question 1. How would you assess Poland's bilateral relationship 
with Ukraine and Poland's posture regarding Russian aggression against 
Ukraine? Are there aspects of Poland's relationship with Ukraine that 
are susceptible to Russian malign influence?

    Answer. Poland consistently advocates for Ukraine's integration 
into transatlantic and European institutions. It has also insisted that 
sanctions against Russia must remain in place until Ukraine's 
territorial integrity is restored.
    Historical conflicts between Poland and Ukraine provide 
opportunities for Russian exploitation, but should not obscure both 
countries' strong common interests. If confirmed, I would be ready to 
lend my good offices to strengthening relations between both countries.

    Question 2. The European Commission concluded earlier this year 
that Poland's ``executive and legislative branches have been 
systematically enabled to politically interfere in the composition, 
powers, administration and functioning of the judicial branch.'' Given 
the importance that the United States attaches to NATO members 
upholding our shared commitment to democracy, human rights, and the 
rule of law as the bedrock of our common security and prosperity, how 
would you engage with Poland to foster ``sliding forward''?

    Answer. A strong and healthy democracy in Poland is a vital 
component of U.S.-Polish relations. The United States relies on allies 
to maintain strong democratic institutions, open economies, and defense 
capabilities. If confirmed, I will pay close attention to developments 
in areas such as democracy, human rights, and rule of law and will be 
prepared to speak privately--and publicly if necessary--on the 
importance of maintaining shared commitments to Western values.

    Question 3. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In my businesses, I assembled workforces that looked like 
America, with backgrounds tracing to most if not all regions of the 
world and without regard to race, gender, sexual orientation or any 
other inappropriate criteria. Similarly, our manufacturing partners 
were known for impeccable integrity and adherence to national and 
international standards of corporate responsibility. I believe that our 
practices directly improved the lives of all involved and contributed 
to setting standards for the American and global corporate communities.
    Through my work on the board of the Atlantic Council, I supported 
an organization that actively advances the global dialogue on human 
rights and democracy. Similarly, through the boards of Business 
Executives for National Security and the Intrepid Fallen Heroes Fund 
and as a member of the United States Commission on Public Diplomacy, I 
have contributed to the ability of the United States to remain a major 
global force for human rights and democracy.

    Question 4. What are the most pressing human rights issues in 
Poland? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Poland? What do you 
hope to accomplish through these actions?

    Answer. The State Department's 2017 Human Rights Report notes that 
issues remain around private property restitution. It also highlighted 
concerns about recent potential legislative amendments that could 
infringe judicial independence. As with all allies, the United States 
routinely discusses human rights and democracy in our bilateral 
relations. If confirmed, I would continue to do so.
    The United States stands by the principles of separation of powers 
and judicial independence. If confirmed, I will urge the Polish 
Government to respect these principles. If confirmed, I also will work 
with the Polish Government, relevant stakeholders, and others to ensure 
private property restitution legislation respects the rights and 
interests of U.S. citizens--especially Holocaust survivors.

    Question 5. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Poland in advancing 
human rights, civil society and democracy in general?

    Answer. Poland and the United States share common values, including 
the importance of protecting and promoting human rights. Poland's civil 
society is diverse and active, with independent groups that report and 
advocate on the issues they care about around the country. If 
confirmed, I will continue the U.S. Embassy's regular engagement with 
these groups on pressing issues, and I will encourage development of 
legislation to address World War II and Communist-era nationalization 
of property. Due to the scope of devastation in Poland during and after 
the war, this challenge will be daunting. However, I am prepared--if 
confirmed--to use my good offices to help solve this problem.

    Question 6. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Poland? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Civil society is an important part of the democratic 
process and has a role to play in public awareness and public 
discourse. If confirmed, I am committed to sustaining engagement with a 
broad spectrum of civil society groups in Poland. If confirmed, I will 
ensure the Department continues to vet thoroughly all individuals and 
units nominated to participate in U.S.-funded security assistance 
activities, in accordance with the Leahy Amendment to the Foreign 
Assistance Act of 1961 (FAA), as amended. If there are findings of 
credible information regarding gross violations of human rights, I will 
take the necessary steps in accordance with the law and Department 
policy, including working to ensure the responsible parties do not 
participate in U.S.-funded training.

    Question 7. Will you and your embassy team actively engage with 
Poland to address cases of key political prisoners or persons otherwise 
unjustly targeted by Poland?

    Answer. The State Department's 2017 Human Rights Report states that 
there were no reports of political prisoners or detainees in Poland. In 
the unlikely event that this situation changes, I will, if confirmed, 
actively engage with Poland.

    Question 8. Will you engage with Poland on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will sustain the United States' engagement 
with a broad spectrum of civil society in Poland, including human 
rights activists and religious groups, and the organizations that 
represent them.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Poland?

    Answer. No.

    Question 12. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As the CEO of two companies with global sales and the first 
woman to be appointed to serve as U.S. Ambassador to Poland, I am 
extremely sensitive to the issue of staff diversity. Likewise, as the 
first person in my family to have graduated from college, I am keenly 
aware of the importance both to the organization and the individual of 
offering opportunity to those who come from different backgrounds. From 
my business career, I am familiar with the management research--and, 
more significantly, know from personal experience--the contribution 
that a diverse workforce and management team can make to the success of 
any organization.
    As you know, ambassadors have only a limited role in directly 
selecting the staff of the Embassy's various sections--and even less in 
selecting the officers of other Agencies and Departments represented on 
the Country Team. For those positions over which I will have direct 
hiring authority, diversity will certainly be among the major 
considerations that I will weigh in making my selections. If confirmed, 
I also will emphasize my interest and strong conviction in favor of a 
diverse workforce for the Embassy and the Country Team and do what I 
can to promote a diverse and inclusive workforce and Country Team for 
Embassy Warsaw and Consulate General Krakow.

    Question 13. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I will expressly encourage both the State Department's 
personnel managers and the other Agencies represented in Embassy Warsaw 
and our Consulate in Krakow to send personnel with a diversity of 
backgrounds, ethnicities and orientations to our posts in Poland--
particularly with respect to the Embassy's section heads, the senior-
most officers reporting to me. I will expect a diverse team of my 
direct reports to, in turn, work with the State Department's personnel 
system, through its assignments process, in order to ensure comparable 
diversity in the designation of more junior officers to our Polish 
posts. I will also reinforce, whenever possible, the diversity-in-
staffing message both in Warsaw and in Washington.
    My Country Team members' success in recruiting and managing a 
diverse workforce in their respective Embassy sections will not only be 
a consistent focus of my management attention; it will be a specific 
point of my assessment of their performance at post.


                               __________


     Responses to Additional Questions for the Record Submitted to 
             Georgette Mosbacher by Senator Jeanne Shaheen

    Question 1. What are your views on the reforms of Poland's judicial 
system undertaken by the current government?

    Answer. The United States stands by the principles of separation of 
powers and judicial independence. Poland is an important ally of the 
United States, and we respect the decisions of its democratically 
elected government. If confirmed, I will urge the Polish Government to 
respect these principles in any legislation it adopts and to address 
any issues that arise through dialogue and compromise, to ensure that 
Poland's democratic institutions and system of checks and balances are 
fully functioning and respected.

    Question 2. What are your views on the current state of freedom of 
the press in Poland?

    Answer. Poland is a democratic ally whose leaders and people share 
our Western values. Poland has a vibrant media environment, which 
includes U.S. investment. If confirmed, I will pay close attention to 
developments in this sector and am prepared to speak privately--and 
publicly if necessary--about the importance of a free and independent 
media as a fundamental pillar of democracy.

    Question 3. If confirmed, what would you do to promote American 
values and address concerns about Poland's domestic governance, 
particularly in the areas of rule of law, judicial independence and 
freedom of the press?

    Answer. The U.S.-Poland relationship is rooted in shared Western 
values--these values form the foundations of our Alliance and the close 
ties between our governments and our peoples. If confirmed, I am 
prepared to speak privately--and publicly if necessary--about the 
importance of upholding these shared values. In addition, I will employ 
the full range of public diplomacy tools to highlight these shared 
values.

    Question 4. Will you meet with Polish civil society groups, 
including judges' and lawyers' associations, working on judicial 
independence and rule-of-law issues?

    Answer. If confirmed, I will sustain the United States' engagement 
with a broad spectrum of civil society in Poland, including judges' and 
lawyers' associations.

    Question 5. Do you agree with the U.S. intelligence community's 
January 6, 2017 assessment, which concluded: ``Russian President 
Vladimir Putin ordered an influence campaign in 2016 aimed at the U.S. 
presidential election. Russia's goals were to undermine public faith in 
the U.S. democratic process, denigrate Secretary Clinton, and harm her 
electability and potential presidency. We further assess Putin and the 
Russian Government developed a clear preference for President-elect 
Trump.''

    Answer. Russia undoubtedly attempted to interfere in the 2016 
elections. Its objective was to erode faith in U.S. democratic 
institutions, sow doubt about the integrity of our electoral process, 
and undermine confidence in the institutions of the U.S. Government.

    Question 6. Russia's continuous cyber and disinformation attacks 
against NATO allies require a concrete, unified approach from the 
Alliance. How will you work to improve Poland's resilience in the face 
of Russian interference in the form of disinformation and funding of 
far-right and disruptive groups?

    Answer. Although many Central European and Baltic partners, 
including Poland, have ``graduated'' from U.S. development assistance, 
the U.S. Government remains committed to helping these partners in 
areas such as building resilience to Russian pressure. I understand the 
administration is looking for additional ways to work with Central 
European governmental and non-governmental partners to counter 
disinformation, enhance energy security, and strengthen governance, 
including initiatives bolstering regional partnerships to counter 
Russian malign influence efforts.


                               __________


     Responses to Additional Questions for the Record Submitted to 
                Georgette Mosbacher by Senator Tim Kaine

    Question 1. Poland has been a focus of U.S. and NATO efforts to 
deter potential Russian aggression in the region. In the wake of 
Russia's Crimea annexation in March 2014, Polish officials revived a 
long-standing wish to permanently base U.S. forces on their territory. 
Under the EDI, the U.S. has bolstered security in the region with an 
increased military presence, additional exercises and training with 
allies and partners, improved infrastructure to allow greater 
responsiveness, enhanced prepositioning of U.S. equipment, and 
intensified efforts to build partner capacity for newer NATO members 
and other partners. In May of this year, Poland proposed establishing 
joint military installations for a U.S. armor division and outlined a 
commitment of up to $2 billion in support. On June 5th, 2018 the Prime 
Ministers of Latvia, Lithuania and Estonia publicly supported the 
permanent stationing of U.S. troops in Poland. Would a permanently 
based U.S. unit in Poland increase or decrease our effectiveness in 
deterring Russia?

    Answer. The rotational U.S. deployments in Poland, including an 
Armored Brigade Combat Team and a U.S. battalion, as part of the U.S.-
led multinational battle group under NATO's enhanced Forward Presence 
in Poland, are very successful. They provide deterrence and significant 
opportunities for exercises and training to strengthen U.S., Polish and 
NATO interoperability and capabilities.
    On the possibility of permanently stationing of U.S. troops in 
Poland, my understanding is that this issue is being discussed within 
the United States interagency at senior levels. I would defer to 
military analysts and foreign policy experts on Russia as to whether a 
permanently based U.S. unit in Poland would increase or decrease our 
effectiveness in deterring Russia.

    Question 2. Do you support the permanent basing of U.S. troops in 
Poland?

    Answer. My understanding is that this question is currently under 
discussion within the U.S. Government, and I would defer to further 
study and counsel from military and foreign policy experts.

    Question 3. If not, please explain the strategic value in having 
relatively small units forward deployed to deter Russia versus a 
permanent U.S. division.

    Answer. I am not a military analyst and would not venture to opine 
on the strategic value of troop postures or configurations, especially 
not without further study by and counsel from relevant military and 
policy experts.

    Question 4. Infantry and aviation units have been deployed through 
EDI, but no cyber units have been a part of the U.S. enhanced forward 
presence. Given the cyber threat Russia poses to the stability and 
infrastructure of Poland do you support a cyber component to EDI?

    Answer. Disinformation and cyber threats pose problems throughout 
the world; their origins are often hard to trace, affording a degree of 
deniability. Such threats make allies vulnerable and represent a new 
set of challenges, against which the United States and its allies must 
act. Steps to enable NATO allies to deter and respond better to cyber 
and the full range of hybrid threats are rightly among the issues being 
addressed at NATO in preparation for the July Summit. Without pre-
empting the counsel of experts, I believe these issues need to be a 
priority in our cooperation with allies.

                               __________

     Responses to Additional Questions for the Record Submitted to 
              Stephen Akard by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a Foreign Service Officer, I contributed to the drafts 
of the annual U.S. Department of State Country Report on Human Rights 
Practices, Report on International Religious Freedom, and Trafficking 
in Persons Report. In the field overseas, I met with and interviewed 
numerous individuals for background information relevant to these 
reports. I believe this work has enhanced appreciation for the U.S. 
commitment to human rights and democracy and encouraged the expansion 
of both. As an attorney, I have been committed to the cause of justice 
throughout my career--in the U.S. Courts, in private practice, and in 
state government service.
    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. The Foreign Service Act directs the Foreign Service to be 
representative of the American people. To be effective, the Foreign 
Service must encourage varied viewpoints and thinking from diverse 
frames of reference. If confirmed, I would advocate strongly for and 
seek out such diverse input. I would also prioritize recruitment, 
training, and acquisition of appropriate tools and resources for the 
success of all employees.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Office of Foreign Missions are fostering an 
environment that is diverse and inclusive?

    Answer. I believe it is essential for the Director to model 
inclusive behavior as outlined above for supervisors and, if confirmed, 
I pledge to do so. I would emphasize the utilization of recruitment and 
development programs such as the Pickering Fellowship, Rangel 
Fellowship, and others. I would expect that supervisors account for the 
training and professional development of staff and I would encourage 
mentoring, New Inclusion Quotient workshops, and the use of career 
advancement and leadership development programming for promising 
employees.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.


                               __________


     Responses to Additional Questions for the Record Submitted to 
                Stephen Akard by Senator Jeanne Shaheen

    Question 1. What is your understanding of the level of cooperation 
provided by the Cuban and Chinese Governments in connection with 
official U.S. investigations into sonic attacks targeting U.S. 
diplomats in Cuba and China?

    Answer. The safety and security of our personnel overseas is of 
paramount importance and the developments in Cuba and China are deeply 
concerning. If confirmed, this issue will be one of my top priorities. 
I understand that we are pressing both countries for full cooperation 
with our investigations into these incidents. If confirmed, I would 
monitor progress on these investigations closely and work with our 
regional bureaus to hold both governments to their commitments under 
the Vienna Convention to provide for the safety and security of our 
personnel.

    Question 2. If it is determined that these governments have been 
anything less than fully cooperative with U.S. officials investigating 
these attacks, what options are available to the United States through 
the Office of Foreign Missions to sanction them?

    Answer. I understand the Department is taking this matter very 
seriously and is working to determine the cause and impact of these 
incidents. The Foreign Missions Act provides the Department with broad 
authority to develop and implement actions or restrictions on the 
operations of foreign missions and their members in the United States. 
Thus, there are a wide range of responsive options available for 
consideration, including but not limited to mandated staff reductions, 
domestic travel restrictions, or other operational restrictions.

    Question 3. Do you agree with the U.S. intelligence community's 
January 6, 2017 assessment, which concluded: ``Russian President 
Vladimir Putin ordered an influence campaign in 2016 aimed at the U.S. 
presidential election. Russia's goals were to undermine public faith in 
the U.S. democratic process, denigrate Secretary Clinton, and harm her 
electability and potential presidency. We further assess Putin and the 
Russian Government developed a clear preference for President-elect 
Trump.''

    Answer. Yes.


                               __________


     Responses to Additional Questions for the Record Submitted to 
                Mark Rosen by Senator Benjamin L. Cardin

Human Rights

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Human rights and democracy are of critical importance to me 
and though I have not had the opportunity to promote them actively in 
my career to date, I intend to make them an important factor in my 
actions at the IMF, if I am confirmed by the Senate. Moreover, if 
confirmed, I intend to utilize the IMF platform to make positive 
changes on both fronts.
Diversity
    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will promote, mentor, and support staff who 
come from diverse backgrounds and underrepresented groups. These staff 
add tremendous value to any organization. I look forward to learning 
from their experiences, if confirmed.

    Question 3.  What steps will you take to ensure each of the 
supervisors you oversee at the International Monetary Fund are 
fostering an environment that is diverse and inclusive?

    Answer. If confirmed, I will use my oversight role on the IMF's 
Board of Directors to press the IMF management to foster an environment 
that is diverse and inclusive. I will also advocate for these issues to 
be considered, as appropriate, in the development and review of IMF's 
human resources policies.
Conflicts of Interest
    Question 4.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to carrying out my duties consistent 
with applicable conflict of interest laws and policies, and to report 
any potential misconduct of which I become aware to the appropriate 
authorities.

    Question 5.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to carrying out my duties consistent 
with applicable conflict of interest laws and policies, and to report 
any potential misconduct of which I become aware to the appropriate 
authorities.

    Question 6.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. I have limited financial interests in the United Kingdom, 
where I was born, that I disclosed on my form 278. After that form was 
filed, I, together with my brother and sister, inherited our family 
house when my parents passed away. We are in the process of selling the 
house.

    Answer. My wife, who is a U.S. citizen, was born in Peru and owns 
interests with her brother and sisters in their family companies in 
Peru. These interests were also disclosed in my form 278.
    If confirmed, I commit to carrying out my duties consistent with 
applicable conflict of interest laws and policies.


                               __________


     Responses to Additional Questions for the Record Submitted to 
                  Mark Rosen by Senator Jeanne Shaheen

    Question 1.The IMF's goals include fostering global monetary 
cooperation, securing financial stability, facilitating international 
trade, promoting high employment levels and sustainable economic 
growth, and reducing poverty around the world. Some other institutions, 
particularly those backed by China, are more narrowly focused and 
transactional in nature. What is your assessment of China's financial 
and investment activities in Latin America?

    Answer. As Treasury Under Secretary David Malpass noted in February 
2 remarks to the Center for Strategic and International Studies, the 
administration is concerned that China is resurrecting the regional 
growth model of the past through engagements that may not benefit 
China's partners in the long run.
    While China has contributed to global and regional growth, its 
state-directed lending and investment has tended to increase the 
region's dependence on resource extraction and primary commodities, 
while its financing has all too often enabled countries to delay making 
needed reforms to governance and economic policy.
    My understanding is that the administration is working to support 
sustainable, private sector-led growth in the region by advocating for 
sound macroeconomic policies, supporting the rule of law and 
anticorruption efforts, and exploring means of mobilizing additional 
financing to address the region's energy and infrastructure needs.

    Question 2. What steps do you believe the United States and 
institutions such as the IMF should take in response to Chinese 
financial and investment activities in Latin America?

    Answer. The IMF, in fulfilling its surveillance mandate, should 
monitor Chinese activities where relevant and should not hesitate to 
call out risks posed by China's loans when appropriate.
    The IMF can also play a crucial role in fostering best practices 
around Chinese lending, including engaging with China on principles 
around transparency, lending consistent with debt sustainability, and 
responsible burden-sharing in debt resolution.

    Question 3.  Will you oppose IMF lending to countries that unjustly 
detain U.S. citizens for extended periods of time?

    Answer. If confirmed, I will work to make sure IMF lending fulfills 
its primary purpose: addressing balance of payments of needs, 
preventing crises, and boosting growth. To be effective, IMF lending 
needs to take into account many aspects of a country's policies, 
including economic policies, political developments, and security and 
social issues. I look forward to coordinating with you on IMF lending 
in my capacity as Executive Director.

    Question 4. Do you agree with the U.S. intelligence community's 
January 6, 2017 assessment, which concluded: ``Russian President 
Vladimir Putin ordered an influence campaign in 2016 aimed at the U.S. 
presidential election. Russia's goals were to undermine public faith in 
the U.S. democratic process, denigrate Secretary Clinton, and harm her 
electability and potential presidency. We further assess Putin and the 
Russian Government developed a clear preference for President-elect 
Trump.''
    Answer. If confirmed, I would not have any involvement in this 
matter, as it is outside the IMF's fundamental mission to help ensure 
stability in the international monetary system. I have seen press 
coverage of Russia's attempted interference in the 2016 U.S. election, 
as well as the administration's efforts to confront and counter 
Russia's continuing destabilizing activities.


                               __________

                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 13, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding], Risch, Gardner, Young, 
Menendez, Cardin, Shaheen, Murphy, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio.  All right, the Senate Foreign Relations 
committee will come to order.
    This is a hearing on the nominations of Ms. Kimberly 
Breier, of Virginia, to be the Assistant Secretary of State for 
Western Hemisphere Affairs; Mr. Kenneth George, of Texas, to be 
U.S. Ambassador to the Oriental Republic of Uruguay; and Mr. 
Joseph Mondello, of New York, to be the Ambassador to the 
Republic of Trinidad and Tobago.
    We thank you for being here. We thank you for your 
willingness to serve our country.
    Before the Ranking Member and I begin our opening remarks, 
we have distinguished guests with us who will be introducing 
one of our nominees. Senator Cornyn, of Texas, will be 
introducing Mr. George, along with--yeah, Congressman Sessions, 
as well, will be introducing him. And then we are also joined 
by Congressman Peter King, who is here today. Thank you, sir, 
for coming and for being with us here today. Obviously, I think 
you are interested in our nominee from New York. So, we thank 
you for coming.
    And so, I will--I guess I will begin by recognizing Senator 
Cornyn. I know you have got a busy day ahead.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Chairman Rubio and Ranking 
Member Menendez.
    It is my pleasure to introduce Ken George, who has been 
nominated by the President to serve as a U.S. Ambassador for 
the Oriental Republic of Uruguay. Ken has served in the Federal 
Government before, under President Ronald Reagan, as Assistant 
Secretary and Director General of the U.S. and Foreign 
Commercial Service in the Department of Commerce. On top of 
holding these prestigious positions, he has served on numerous 
city, State, and professional boards and commissions back in 
Texas, as well as chairman and CEO of several public and 
private corporations. Since 2009, for example, he has been the 
owner and manager of Blue Harbor Plantation and Blue Harbor 
Tropical Arboretum in Honduras. This role has exposed him to 
social, political, and business contacts and contexts within 
Latin America. And I am sure his experiences will serve him 
well in Uruguay.
    Ken and his wife, Tricia, and I first met when I was 
serving as a district judge in San Antonio, Texas, so we go way 
back. But, Ken--our paths crossed again when Ken served in the 
Texas legislature in 1998.
    Over the last 30 years, I am glad our careers have 
overlapped so often. I have gotten the chance to know Ken, and 
I can say from firsthand experience he is more than qualified 
and generally--a genuinely great fit for this position.
    Uruguay is a country of roughly 3 and a half million 
people, and it stands out among its Latin American neighbors 
for its strong democratic institutions as well as its high per-
capita income and comparatively lower levels of corruption, 
poverty, and inequality. Over the last decade, the U.S. and 
Uruguay have forged closer trade and investment ties, and have 
worked together to promote international peace and security. In 
2005, this committee knows, the country signed a bilateral 
investment treaty. And in 2007, we signed an important trade 
and investment framework agreement.
    We are Uruguay's fourth-largest trading partner. And, in 
2017, our exports to Uruguay totaled $1.6 billion, resulting in 
a sizable U.S. trade surplus. U.S.-Uruguay merchandise trade 
has increased by 90 percent since 2007, and its U.S. foreign 
direct investment--and U.S. foreign direct investment in 
Uruguay has increased dramatically, as well. These are good 
signs that our effective diplomacy is paying dividends.
    Strategically located between South America's largest 
economies, Argentina and Brazil, Uruguay maintains a favorable 
investment climate that does not discriminate against foreign 
investors. As America's diplomat there, Ken will be crucial to 
ensuring the atmosphere is maintained and nurtured.
    Of particular interest will be keeping a close eye on 
China's influence in Uruguay as they extend their influence 
throughout South America and around the world. There have been 
reports about the Chinese interests in harbor projects there. 
And, given the country's economic and military aggression--
aggressiveness in other parts of the globe, we have to monitor 
these developments closely.
    In the international sphere, Uruguay promotes democracy and 
human rights, and is one of the largest per-capita contributors 
to U.N. peacekeeping missions in places like the Congo. Again, 
Ken will be pivotal in ensuring this and other international 
partnerships flourish. I know a group of U.S. Air Force 
colonels recently visited the Uruguayan Ministry of Defense to 
discuss peacekeeping, and I am sure Ken will be key in 
facilitating future similar meetings.
    Finally, let me say that Ken George's civil service is 
extensive and is rooted in his passion to serve his country. In 
his new role, he will collaborate with stakeholders, including 
the White House, Congress, and the State Department, to advance 
our Nation's interests as well as strengthen our relationship 
with the people and Government of Uruguay, and support 
continued development of democratic institutions there. Uruguay 
is fortunate, indeed, to have such a strong proponent of 
democratic principles and the rule of law serve as our U.S. 
Ambassador.
    Thank you very much, Mr. Chairman, Senator Menendez, for 
your consideration of this excellent nominee. I know he is 
eager and excited to serve his country once again in this new 
role.
    Thank you----
    Senator Rubio.  Thank you.
    Senator Cornyn.--very much.
    Senator Rubio.  Thank you, Senator.
    And it is Texas. They always do everything big, so we have 
two people from Texas here today.
    Congressman Sessions.

               STATEMENT OF HON. PETE SESSIONS, 
                 U.S. REPRESENTATIVE FROM TEXAS

    Mr. Sessions. Mr. Chairman, thank you very much. And, 
Ranking Member Menendez, it was so good to visit with you 
earlier about not only the success of this subcommittee and the 
committee, but also the kind of people who are brought forth to 
be before you today.
    Mr. Chairman, I stand in support of the gentleman from 
Texas--Dallas, Texas--Ken George. Mr. George, I have known for 
30 years. I have known him in business. I have known him in his 
professional attributes, as he has a great name across Dallas, 
Texas, including his academic credentialing. Ken, a few years 
ago, went back and got his master's degree, when he did not 
have to, simply to tighten himself up on the attributes of 
doing business in academia today.
    Mr. George has an opportunity today to be with his 
beautiful young wife, Tricia, and two of his sons, Kenneth and 
Clement. He also has two other children. All three of his young 
boys are Eagle Scouts, and two of them serve our country--have 
served our country honorably in the United States Navy and the 
United States Marine Corps.
    Mr. George, in particular today, brings what I believe is a 
strong understanding of not only the free enterprise system, 
but America. Doing business internationally, Mr. George is no 
stranger to not only doing business internationally from his 
days of service to--from the Commerce Department, but also in 
his wide range of activities from Dallas, Texas. He is sought 
after, not only from a perspective of understanding business, 
but also the relationships that there go to also.
    I spoke with Mr. Menendez earlier about me growing up in--
several years in Bethesda, Maryland. When I grew up in 
Bethesda, Maryland, I had an opportunity to have a Scoutmaster 
whose father was the Ambassador to the United States from 
Uruguay, Hector Luisi. Mr. Luisi served his great nation, 
Uruguay, for a number of years. And so, I grew up knowing about 
the great nation, the sovereign nation of Uruguay, its people, 
its history, its heritage, the pride of authorship of their 
relationship with the United States. And so, it came as a 
particular delight for me when my dear friend, Ken George, was 
nominated by the President of the United States, Donald J. 
Trump, to become the United States Ambassador to a country that 
I not only had learned about as a young man, but that I know 
the people who were there also. And so, I had an opportunity to 
link up the gentleman, Mr. George, with Hector Luisi, who is 
the son who still stands in pride of authorship of his great 
nation. And I will tell you that Mr. George will be a strong 
attribute of not only the credentialing of America, but, 
perhaps more importantly, the honest, open atmosphere by which 
the American people approach the southern hemisphere for them 
to know that we value them, not only as sovereign nations, but 
want to be friends with them and to have them--and have them 
see a better life as we exist with the United States of 
America.
    And I thank both of you not only for your attention to this 
detail, but the knowledge that you have allowed some of Ken's 
friends, Senator Cornyn and myself, to stand up as a strong 
attribute of Kenneth George, Ambassador to Uruguay from the 
United States of America.
    Thank you, Mr. Chairman.
    Senator Rubio.  Thank you, Congressman. Thank you for 
coming over here today.
    And thank you, Senator Cornyn.
    And thank you, Congressman King, for being here, as well, 
in support of your nominee. I guess you are here to be 
supportive. Okay, good. You have got to ask. You never--it is 
like those weddings, you know, you have got to make sure. You 
still have to ask the question.
    But, we appreciate all of you being here.
    And today's hearing is opportune--and I know you need to 
run, but--thank you. Today's hearing is opportune as we focus 
on the western hemisphere. And I thank the Ranking Member and 
the Chairman for making it a full-committee hearing and not 
just a subcommittee hearing. As everyone knows, the Ranking 
Member has a deep interest in the western hemisphere, and many 
years of experience in defending democracy. And so, I am 
grateful to be able to chair this alongside him today.
    Ms. Breier, if confirmed as the Assistant Secretary of 
State for the Western Hemisphere, you, of course, would be 
shepherding U.S. policies in the western hemisphere at a type--
at a time that I think is as interesting as any in recent 
memory. As is part of the trend globally, there is a real 
challenge to democracy. We see the world increasingly being 
divided into a battle between autocracy and democracy. And our 
hemisphere is no exception to that. Obviously, Cuba has not had 
democracy for a very long time. Venezuela has seen its 
democracy blatantly stolen. And we are all well familiar with 
the tragedy that has--on--developed there. And lately, 
Nicaragua is a place that is not necessarily a model of 
democracy, but, in the last couple of months, the people of 
Nicaragua have begun to express how strongly they feel about 
the erosion of democracy there. All of those three continue to 
bear watching in the months to come, and you will be 
shepherding administration policy.
    In addition to that, we have geopolitical competitors and 
adversaries of the United States continuing to try to engage in 
the western hemisphere. We know that China is bribing and 
unfairly investing--and I say ``unfairly,'' because their 
investings are one--their investments are one-way streets 
throughout the hemisphere, aggressively stepping into the 
vacuum that they argue the United States has left behind. The 
result has been, in the short term, that at least two countries 
in this hemisphere have already de-recognized Taiwan and Panama 
and the Dominican Republic, and open relations with China 
instead. The long-term implications, of course, are that, as 
part of these investments, quote/unquote, that they make in 
these countries, they demand and push these countries to vote 
with them in international forums like the United Nations.
    Russia is in our hemisphere, and it is largely looking for 
opportunities to create intelligence agreements and basing 
agreements. And they do this for a number of reasons, to 
collect on U.S. interests, but also to potentially have 
influence over governments in the region. And I think that we 
should be prepared to see and to help our allies counteract any 
sort of influence campaigns that they might be trying to 
undertake to undermine democracy in the upcoming elections in 
numerous countries, including Mexico and Brazil and Colombia 
this weekend.
    It is also a region that faces the threat of transnational 
crime. We have known about that for a long time, in the 
challenges that Colombia has faced. But, these record cocaine 
hauls and the record cocaine production in Colombia which we 
have seen over the last few years has put tremendous strain on 
our allies in Guatemala and in Honduras. People would be 
shocked to learn that Costa Rica is now facing a very serious 
threat. We do not traditionally think of Costa Rica as a place 
that faces any sort of threat from transnational crime and 
violence, but they are deeply concerned about the trends there, 
and need our help to get ahead of it.
    The Dominican Republic and Haiti, a place--Haiti was a 
place where drug dealers did not go through for a while, 
because it was too dangerous even for them. But, now it is a 
place where they have somehow and some way found opportunity to 
traffic through there, through the Caribbean Basin. And, of 
course, the Dominican Republic, as well.
    But, in addition to these challenges, it is also a region 
that presents us with opportunities. There will be an election 
this weekend in Colombia. It will be free, it will be 
democratic, and it will elect a new President. And we do not 
weigh in on who we prefer on--in sovereign democracies. Suffice 
it to say that, no matter who is elected, they will have some 
differences of opinion, but, by and large, Colombia this 
weekend will not just elect a democratically elected leader, 
they will also elect someone who will continue to work with the 
United States. And Colombia, for all of its challenges, remains 
a success story as to how U.S. engagement can create allies in 
the region and around the world who will become force 
multipliers. They are contributing greatly, for example, in 
Honduras, in helping their own forces. From what we have 
trained them to do, they are now capable enough for going 
abroad and doing it themselves.
    There is opportunity, believe it or not, and it has been 
underreported, in Ecuador. It is still not idea, terms of what 
we want to see, but its new President over the last year and a 
half has taken measures to restore more openness, more 
democracy, and careful outreach towards the United States. But, 
that is a--an important opening, and we are happy to see that. 
We hope those trends will continue.
    Brazil will have elections next year. And there has 
obviously been a lot of tumult. But, the one thing I always 
point people to is that, in Brazil, the rule of law worked. To 
the extent that leaders are being removed, they are being 
removed through their courts, not through their armies. And 
that is a huge development. And hopefully, they will be able to 
conduct a very successful election early next year.
    Chile continues to prosper. Argentina's economy faces some 
challenges, but it is also a country that has moved into a more 
pro-American direction, but also one which is trying to engage 
more openly in economic growth. And I recently had the 
opportunity to be in Peru, which--a nation that does not get a 
lot of attention, but it, too, has successes. Even though it 
also removed a President for corruption, it did so through the 
rule of law. Again, not through a military coup or an 
assassination, but through its system of laws. And Peru, by the 
way, takes great pride in the role they play in the world, and 
it has been a productive one in diplomacy. It is a nation--it 
is not a large nation, but it has a deep diplomatic heritage. 
And it is why the organization--the informal organization that 
has come together to confront the challenges of Venezuela is 
called the Lima Group, because they hosted that first meeting 
that brought that group together.
    But, I will tell you--and everybody here who cares about 
the western hemisphere, including Ms. Breier and, of course, 
the Ranking Member, myself, know the one thing we hear often 
from our allies in the region is, they feel neglected and 
ignored. They feel like we do not pay enough attention to them. 
This is not a partisan issue. Multiple administrations have 
been guilty of that. And, understandably, there are incredible 
threats and challenges in other parts of the world--in Asia, in 
the Middle East. But, the western hemisphere is important. 
Something that would be a one in another part of the world 
would be a five or a ten, because it is so close to us and so 
deeply impacts us.
    So, there is a lot to do, and I hope we will continue to 
pay more attention to this region, because it is incredibly 
important.
    In the context of all that, Mr. George, Uruguay is a strong 
democracy. It has a growing middle class. They have challenges. 
While they have condemned the Maduro regime, for example, they 
have resisted isolating it in the international forums. And I 
hope, if confirmed, that you will be a voice in continuing to 
nudge them in the right direction. Democracy should be 
defending democracies. They have enjoyed strong economic growth 
over the last 10 years, been--dramatically decreased the 
widespread poverty that are seen in some of the other countries 
in the region. As I said already, they have a large middle 
class, their democracy is stable. But, they have also drawn the 
attention of China. While the United States is still the 
largest trading partner with Latin America, China is closing 
that gap, and, I would say, unfairly. They bribe their way into 
many of these countries in the region. And this opens a door 
for them to continue to further exert its influence over the 
region.
    Mr. Mondello, Trinidad and Tobago is a relatively 
prosperous democracy, but it also produced more ISIS fighters 
per capita than any country in the western hemisphere. And, as 
ISIS leadership looks to rebuild and reorganize as an 
insurgency rather than a--an organization that holds large 
swaths of territory, it is imperative that Trinidad and Tobago 
continue to focus on countering violent extremists, and that we 
help them. As we were talking about earlier in our meeting, 
there are numerous daily nonstop flights between Trinidad and 
Tobago and Miami and Kennedy Airport. And so, we should care a 
lot about what is happening there. It is very close to home.
    Unfortunately, Trinidad also continues to side with the 
Maduro regime at the OAS. And again, that is making it 
difficult for concerned democracies throughout the hemisphere 
to pressure Venezuela to return to constitutional order. And I 
hope, if confirmed, that you can help us continue to nudge them 
in the right direction, because, once again, democracies should 
support democracy.
    Just last month, by the way, Trinidad signed on to China's 
Belt and Road Initiative, which it just--it is a Chinese mega-
project that seeks entangle developing countries in one-sided 
trade relationships that ultimately lead to Beijing to call the 
shots. And their participation in this initiative allows China 
to continue to extend its financial and political influence 
deep into the western hemisphere in yet another country. We 
have to develop ways to counter that and to point out to our 
allies in the region how one-sided these Belt and Road 
Initiatives are in other parts of the world, and how deeply 
indebted some countries are left after agreeing to these so-
called Chinese gifts that turn out to be not so much of a gift 
after all.
    So, in closing, I would say all these positions are going 
to play an important role in advancing our foreign policy. I 
want to thank all of you and your families for your commitment 
to our country and your willingness to serve.
    The Ranking Member.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman. And thank 
you for agreeing to chair this full-committee hearing on 
nominations for the western hemisphere. As I said to Chairman 
Corker, I believe these nominees and this Assistant Secretary 
nominee is as important as the nominees we will be considering 
tomorrow for other Assistant Secretary positions.
    It has been more than 16 months into the administration, 
and it is good to finally have a nominee for Assistant 
Secretary to the Western Hemisphere. I am also pleased to have 
the Ambassadorial nominees for Uruguay and Trinidad and Tobago 
before us.
    Congratulations to all of you on your nominations. And we 
look forward to hearing from you shortly.
    As Senator Rubio just did, he did a pretty good hemispheric 
tour of some of our opportunities and challenges in the western 
hemisphere, something that, for 26 years, I have been focused 
on in the House and Senate. We have both long argued that the 
western hemisphere does not receive enough attention, given its 
critical importance to the United States as--in our own 
hemisphere, in our own neighbors, in our own front yard. As we 
look across the region, there is a wide range of positive 
trends at play, a growing middle class, a widely shared belief 
in democratic values, human rights, and the rule of law, 350 
million voters casting ballots across the region in 2018, and 
the authoritarian governments in Cuba and Venezuela 
increasingly outliers shunned by their neighbors.
    However, much of the press attention that the western 
hemisphere has received of late seems to be for all the wrong 
reasons. I think virtually every member, I would think, on this 
dais was appalled by the President's comments towards Prime 
Minister Trudeau over the weekend, especially giving that 
Canada is one of our closest allies on issues spanning the 
globe, whose sons and daughters in the Armed Forces of Canada 
have served alongside our sons and daughters in Afghanistan and 
elsewhere, and who have died in the cause. Pretty amazing to me 
the comments that we reserve for one of our closest allies.
    I am also outraged by the President using language that we 
generally reserve for the most ardent adversaries and enemies 
to criticize Mexico and its people, the second-largest export 
market for United States goods and services in the world--not 
in the hemisphere, in the world--the second-largest market for 
United States goods and services in the world, and demand that 
its government pay for a multibillion-dollar border wall that 
would be ineffective and a complete waste of taxpayers' 
dollars.
    Additionally, I fail to see how the overtly political 
termination of DACA and the Temporary Protected Status for El 
Salvador, Honduras, and Haiti is anything more than reckless 
decisions that threaten to undermine our national security 
interests in the name of advancing the President's xenophobic 
anti-immigration agenda.
    And I am unable to understand how U.S. leadership is 
strengthened by the President skipping the Summit of the 
Americas or when the administration's fiscal year 2019 budget 
request proposes a staggering 42-percent cut--42-percent cut--
for Latin America. That would decimate the diplomatic and 
development tools we desperately need to promote stability, 
prosperity, and security in a region that we live in. I hope we 
will hear from the nominee today about how these developments 
affect our national interests and our national security.
    Now, beyond these divisive issues, I should know that there 
is broad bipartisan support for addressing many of the 
opportunities and challenges in the region. In recent years, 
members on both sides of the aisle have worked together to 
address the weak rule of law, sky-high homicide rates, and 
poverty that fuel instability and migration in El Salvador, 
Guatemala, and Honduras. The United States cannot waiver in our 
engagement, must be sharply focused on monitoring our progress.
    There is also growing bipartisan concern about China's 
transactional process and approach to diplomacy in the western 
hemisphere, which offers short-term economic benefits to 
countries, including Panama and the Dominican Republic, in 
order extract political gains that often are not consistent 
with the United States national interests. If we do not 
actively promote our values and interests, other forces within 
the region and from outside will happily fill the void.
    And then there is the near-universal consensus in the 
Senate that Venezuela is a failed state run by a criminal 
government that has stolen elections and used access to food as 
a political weapon, collapsed its economy and plundered public 
finances through widespread corruption, created a humanitarian 
catastrophe that is fueling a refugee and migration crisis in 
the region, and committed a series of abuses that increasingly 
look like crimes against humanity and which deserve scrutiny by 
the International Criminal Court. For these reasons, I intend 
to introduce bipartisan legislation that will provide the 
administration with additional tools to address these 
challenges. And I would like to hear from our two nominees to 
the countries that they have been designated for how they will 
work to get these countries to join us at the OAS, in voting 
with us in common cause as it relates to Venezuela.
    Against this backdrop and in closing, I certainly want to 
thank our nominees for their willingness to serve our country, 
as well as their families. This is a joint enterprise in every 
respect of the word, so we appreciate their willingness to 
sacrifice, as well. We look forward to your testimony, the 
opportunity to ask questions about these policy priorities in 
our hemisphere.
    Thank you, Mr. Chairman.
    Senator Rubio.  Thank you.
    Mr. Mondello, we will begin with you with your opening 
statement.

  STATEMENT OF JOSEPH N. MONDELLO, OF NEW YORK, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
    STATES OF AMERICA TO THE REPUBLIC OF TRINIDAD AND TOBAGO

    Mr. Mondello. Senator Rubio, Senator Menendez, 
distinguished members of the committee, good morning. I am 
honored to appear before you today, and I would like to begin 
by expressing my gratitude to President Donald Trump for the 
faith and confidence he has placed in me. If confirmed, it will 
be an honor to represent our Nation as Ambassador to the 
Republic of Trinidad and Tobago.
    Before beginning my statement, I would like to introduce to 
you my wife of 54 years, Linda Crabtree Mondello. Linda's 
support and love, particularly at the beginning of our 
marriage, when her hard work and efforts helped finance my 
legal education, she has been the firm foundation upon which 
any success that I have achieved in life, both personally and 
professionally, rests. I certainly could not be more 
appreciative of all of her extraordinary sacrifices on my 
behalf, and it is important to me that she shares this moment 
with me.
    I also would like you to meet my daughters, Elizabeth, a 
schoolteacher, and Lisa, an attorney, who have taken the time 
from their family and professional responsibilities in order to 
join their mother and me today. I am very proud of both of 
them, and very grateful for all of their love and support.
    Finally, I want to express my thanks to all my friends that 
traveled from New York to be by my side at this hearing, 
especially Robert Zimmerman and Joseph Carro, and Congressman 
Peter T. King. Their encouragement and guidance throughout this 
process means more than words can express.
    Being considered for the most--for the post of Ambassador 
of the United States of the Republic of Trinidad and Tobago is 
an extraordinary high point in my life. I could never have 
envisioned, while growing up in very modest circumstances in 
the Bedford-Stuyvesant section of Brooklyn, New York, that I 
would one day appear before the distinguished members of this 
committee seeking confirmation to this position of great 
distinction and responsibility. The neighborhood where I spent 
my childhood was a veritable United Nations of hard-working men 
and women from virtually every ethnic background, race, and 
creed. While these wonderful people differed in many ways, they 
were all united in their desire to achieve their own piece of 
the American Dream for their--for themselves and for their 
families. I know that if my parents were here to witness this 
moment, they would be proud that their fine example has enabled 
their son to pursue a career that, in many respects, evokes the 
dreams and aspirations of generations of Americans who came to 
these shores in search of a better way of life.
    My mother was a very religious woman, whose family came to 
America from San German, Puerto Rico. She passed on to me a 
pride in her Spanish heritage that I have tried to instill in 
my own children and grandchildren. My father pursued a craft 
that has long since been extinct. He was a linotype operator 
for the Brooklyn Eagle, the Herald Tribune, and the New York 
Times. A proud union member, my father never missed an 
opportunity to instill in me the value of hard work. Together, 
they raised my sister and me in an environment where faith, 
family, and love of country governed our daily lives.
    Being determined to live by the example that they set for 
me, I embarked upon a career that offered me a wide range of 
experiences, including service as a schoolteacher, probation 
officer, government agent, assistant district attorney, local 
elected official, political leader, and private-practicing 
attorney. I am also very proud that I served my Nation as a 
member of the United States Army, the Air National Guard, and 
the New York Guard.
    I am truly excited by the prospect of serving our Nation 
again, if I am confirmed, as the Ambassador to one of our most 
important Caribbean partners. I am firmly committed to 
advancing the long-established goals of the U.S. Mission to 
Trinidad and Tobago. Paramount among these is assisting the 
efforts of the national security to stem the surge in violent 
crime and fight illicit human and drug trafficking. Clearly, 
sex trafficking and forced labor are critical national and 
regional issues that impact Trinidad and Tobago's standing in 
the international community and its government's efforts to 
diversify and grow the national economy through increased 
trade.
    In addition, Trinidad and Tobago's location astride vital 
shipping lanes has made it a transshipment point for South 
American drugs destined for the United States and Europe. The 
U.S. mission must, in my view, play a leadership role in the 
host-government's efforts to reverse Trinidad and Tobago's 
growing involvement as a destination, transit point, and source 
for adults and children ensnared into these illicit activities. 
The increasing involvement of international crime organizations 
in human and drug trafficking, coupled with systematic 
corruption, are significant impediments to achievement of these 
important goals. I will, if confirmed, work to facilitate 
stronger economic ties with a nation that thinks--that, thanks 
to its large reserves of oil and natural gas, is one of our 
Nation's most important trading partners, with a per-capita GDP 
that, in this hemisphere, is only exceeded by Canada and the 
United States. If confirmed, I will work diligently to support 
the Trinidadian Government in its efforts to diversify the 
local economy beyond the energy sector into agricultural 
exports and the expansion of Trinidad and Tobago's role as a 
regional finance center.
    Needless to say, the opportunities for U.S. companies to 
participate in this economic diversification are myriad. If 
confirmed, I will work closely with government officials to 
identify key products and services that are well-suited for 
expansion into U.S. markets. Central to this effort will be 
identifying nascent synergies within our two economies and then 
foregoing--forging relationships between American businesses 
and their appropriate counterparts in Trinidad and Tobago.
    Overshadowing all these concerns are the joint efforts of 
our two nations to reverse the influence of Islamic extremist 
groups among the island nation's small Muslim minority. Of 
particular concern are the conditions that led to the 
extraordinary high recruitment rate from Trinidad and Tobago 
that ISIS enjoyed at the peak of its power and influence. Given 
my background in law enforcement, public service, and the law, 
I believe I possess the skills and experience necessary to 
build relationships and force the cooperative initiatives 
between our two nations in both the public and private sector. 
If confirmed, the members of this committee can rest assured 
that I will work closely with Congress as we pursue our 
Nation's longstanding goals in the Caribbean.
    Thank you for your time and attention.
    [Mr. Mondello's prepared statement follows:]


                Prepared Statement of Joseph N. Mondello

    Mr. Chairman and distinguished members of the committee, good 
morning. I am honored to appear before you today.
    I would like to begin by expressing my gratitude to President 
Donald Trump for the faith and confidence he has placed in me. If 
confirmed, it will be an honor to represent our nation as Ambassador to 
the Republic of Trinidad and Tobago.
    Before beginning my statement I would like to introduce to you my 
wife of 54 years, Linda Crabtree Mondello. Linda's support and love, 
particularly at the beginning of our marriage--when her hard work as a 
TWA flight attendant helped finance my legal education--has been the 
firm foundation upon which all that I have achieved in life--both 
personally and professionally--rests. I simply could not be more 
appreciative of all of her extraordinary sacrifices on my behalf. It is 
important to me that she shares this moment.
    Being considered for the post of Ambassador of the United States to 
the Republic of Trinidad and Tobago is an extraordinary high point in 
my public service career.
    I could never have envisioned, growing up in very modest 
circumstances in the Bedford-Stuyvesant section of Brooklyn, New York, 
that I would one day appear before the distinguished members of this 
committee seeking confirmation to one of the most important posts that 
our government can convey upon one of its citizens.
    The neighborhood where I spent my childhood was a veritable United 
Nations of hard working men and women from virtually every ethnic 
background, race and creed, including from Trinidad and Tobago--there 
are about a quarter million Trinidadian-Americans in the United 
States--mostly in New York and New Jersey.
    While these wonderful people differed in many ways, they were all 
united in their desire to achieve their own piece of the American dream 
for themselves and their families. I know that if they were here to 
witness this moment, my parents would be justifiably proud that their 
fine example has enabled their son to pursue a career that, in many 
respects, evokes the dreams and aspirations of generations of Americans 
who came to these shores in search of a better way of life.
    My mother was a very religious woman whose family came to America 
from San German, Puerto Rico. She passed on to me a pride in her 
Spanish heritage that I have tried to instill in my own children and 
grandchildren. My father pursued a craft that has long since become 
extinct. He was a line-o-type operator for the Brooklyn Eagle, the 
Herald Tribune, and the New York Times. A proud union member, my father 
never missed an opportunity to instill in me the value of hard work. 
Together they raised my sister and me in an environment where faith, 
family, and love of country governed our daily lives.
    Determined to live by the example that they set for me, I embarked 
upon a career that offered me a wide range of experiences, including 
service as a school teacher, probation officer, government agent, 
assistant district attorney, local elected official, political leader, 
and private practicing attorney. I am very proud that I served my 
nation as a member of the U.S. Army and the Air National Guard; and my 
state as a Major General in the New York Guard.
    I am truly excited by the prospect of serving our Nation again if I 
am confirmed as Ambassador to one of our most important Caribbean 
partners. I am firmly committed to advancing the long established goals 
of the U.S. Mission to Trinidad and Tobago and building on our 
partnership with the Trinbagonian Government in the areas of security, 
prosperity, and energy.
    Trinidad and Tobago is a vibrant and multi-cultural democracy that 
stands out in the Caribbean for its oil and gas fueled economic 
development. I will, if confirmed, work to facilitate stronger economic 
ties with a nation that, thanks to its large reserves of oil and 
natural gas, is already one of our nation's most important trading 
partners with a per capita GDP that, in this hemisphere, is only 
exceeded by Canada and the United States.
    If confirmed, I will work diligently to promote U.S. exports, 
advocate for U.S. companies, and support the Trinidadian Government in 
its effort to diversify the local economy beyond the energy sector into 
agricultural exports and the expansion of Trinidad and Tobago's role as 
a regional finance center. Another priority of mine will be to continue 
our strong security partnership, including through the Caribbean Basin 
Security Initiative, and to support the Government of Trinidad and 
Tobago's efforts in the fight against crime and illicit trafficking, as 
well as in counterterrorism cooperation.
    Given my extensive background in law enforcement, public service 
and the law, I believe I possess the skills and experience necessary to 
build relationships and foster cooperative initiatives between our two 
nations in both the public and private sector.
    If confirmed, the members of this committee can rest assured that I 
will work closely with Congress as we pursue our nation's long-standing 
goals in the Caribbean.
    Thank you for your time and attention. Now I would be happy to 
answer any questions.


    Senator Rubio.  Thank you.
    Ms. Breier.
    Mr. Mondello. Thank you.

  STATEMENT OF KIMBERLY BREIER, OF VIRGINIA, NOMINEE TO BE AN 
  ASSISTANT SECRETARY OF STATE FOR WESTERN HEMISPHERE AFFAIRS

    Ms. Breier. Thank you very much, Mr. Chairman, Ranking 
Member Menendez, and distinguished members of the committee. It 
is an honor to be here with you today as President Trump's 
nominee to be Assistant Secretary of State for Western 
Hemisphere Affairs. I am humble and thankful to the President 
and to Secretary Pompeo, who have entrusted me with this 
important opportunity.
    I also want to thank former Secretary Tillerson. Working 
with him was one of the great highlights of my career.
    I want to thank my parents, who could not be with us today 
from Massachusetts. I am here because their sacrifices allowed 
me to have opportunities that they did not.
    I could not be here without the love and support of my 
husband, Peter, and my daughter, Emma, who are an inspiration 
to me in their unflagging support.
    I am also grateful for having the opportunity to learn from 
so many colleagues, mentors, and teachers too numerous to name 
here.
    I have had the privilege of knowing six recent Assistant 
Secretaries of State for Western Hemisphere Affairs, and many 
have taken the time already to offer me wise counsel. I 
recently had the pleasure of meeting a seventh, who described 
to me how the job is akin to playing tennis with five ball 
machines on the other side of the court.
    Indeed, the Bureau of Western Hemisphere Affairs is as 
described, it covers the hemisphere and is home to 29 
embassies, 23 consulates, and 30 countries. It is a leading 
bureau on many issues at the forefront of the administration's 
agenda, including ensuring free and fair trade, combating 
transnational criminal organizations, deterring irregular 
migration, and working through alliances to enhance U.S. 
prosperity, security, and to promote democratic governance.
    This region is often underappreciated in its strategic 
importance to the United States, as we are often consumed with 
other priorities. I firmly believe, and fully commit, that we 
must get it right in the western hemisphere if we are to have 
success in other parts of the world. I am, and will be, if 
confirmed, a tireless advocate for the importance of this 
region.
    The National Security Strategy lays out that our economic 
prosperity is central to U.S. national security. Our prosperity 
is deeply linked to the western hemisphere, home to half of the 
nations with whom we have free trade agreements. Overall trade 
with the western hemisphere is nearly three times as much as it 
is with China. The administration's western hemisphere policy 
is, rightfully, dynamic and robust. Interaction with Mexico is 
intense, daily, and institutional. I am committed to ensuring 
that the administration's focus on Mexico will bear fruit in a 
positive way.
    The administration has been, and remains, steadfast on 
Venezuela. As Vice President Pence said recently, Venezuela 
shows us the tragedy of tyranny. This unprecedented challenge 
requires robust diplomacy, creativity, and, more than anything, 
fierce resolve.
    Last year, the administration announced its Cuba policy, 
which seeks to support the Cuban people, human rights, and not 
to allow U.S. economic interaction to aid the repressive 
security services.
    The administration has continued support for the U.S. 
strategy in Central America; in fact, expanding it by aligning 
more closely with Mexico.
    The administration supports sustainable peace in Colombia, 
at the same time reaching new agreements to address the 
alarming growth in coca cultivation and production. The 
Caribbean 2020 Plan, sent to Congress last year, looks to 
foster security and prosperity in a region important to our 
interests.
    I have had the privilege of working on something I am 
passionate about for nearly two decades. This includes 
government service over four presidencies. I have seen the 
western hemisphere from three executive-branch departments, 
from the private sector, from think tanks, and from extensive 
travel and study abroad.
    I began my career as an intelligence analyst, serving for 
more than a decade, rising to manage a team with leadership 
responsibilities across a large office. On the National 
Security Council staff at the White House, I was Director for 
Brazil and Southern Cone, Director for Mexico and Canada, and 
did an interim period as Director on the Andean region.
    Working in the private sector for 5 years was a lesson in 
how the private sector can be a U.S. force multiplier. I also 
had the good fortune to work twice at the Center for Strategic 
and International Studies, first as an intern, and, two decades 
later, as an--as a senior leader in western hem.
    Last June, I have--since last June, I have had the 
privilege to work closely with the Western Hemisphere Bureau 
while serving on the Secretary's policy planning staff. I have 
reunited with former colleagues and have been reminded how 
committed public servants work long hours to get the job done 
to advance U.S. policy interests. I can assure you that working 
with WHA is both humbling and deeply reassuring, because, if 
confirmed, we will all be in this together. I could not ask for 
a better team. If confirmed, my job will be to ensure that they 
all succeed and that the United States succeeds, as well.
    I would like to close by thanking you for your continued 
commitment to getting it right in the western hemisphere. So 
many of you care deeply about this region, and I thank you for 
that.
    I am happy to take your questions.
    [Ms. Breier's prepared statement follows:]


                 Prepared Statement of Kimberly Breier

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, it is an honor to be with you today as President 
Trump's nominee to be Assistant Secretary of State for Western 
Hemisphere Affairs. I am humbled and thankful that the President and 
Secretary Pompeo have entrusted me with this important opportunity. I 
also want to thank former Secretary Tillerson. Working with him was one 
of the great highlights of my career.
    I want to thank my parents who could not be with us today from 
Massachusetts. I am here because their sacrifices allowed me to have 
opportunities they themselves did not. I could not be here without the 
love and support of my husband Peter and my daughter Emma, who are an 
inspiration to me in their unflagging support and willingness to allow 
me the privilege of serving my country.
    One does not get to this point absent the mentoring of many people. 
I am grateful for having the opportunity to learn from talented foreign 
policy experts, intelligence analysts, foreign and civil service 
officers, and many other colleagues, mentors, and teachers too numerous 
to name. I have had the privilege of knowing six recent Assistant 
Secretaries of Western Hemisphere Affairs, and many have taken the time 
to offer me wise counsel. I recently had the pleasure of meeting a 
seventh, who described to me how the job is akin to playing tennis with 
five ball machines on the other side of the court.
    Indeed, the Bureau of Western Hemisphere Affairs is as described--
it covers a hemisphere and is home to 29 embassies and 23 consulates in 
30 countries and handles the intersection of bilateral, regional, and 
global issues. It is a leading Bureau on many issues at the forefront 
of the Trump administration's agenda, including ensuring free and fair 
trade, stepping up our efforts to combat transnational criminal 
organizations of all types, deterring irregular migration, and working 
through alliances to enhance U.S. prosperity, security and to promote 
democratic governance.
    The region is often under-appreciated in its strategic importance 
to the United States, as we are often consumed with other global 
priorities. I firmly believe, and fully commit, that we must get it 
right in the Western Hemisphere if we are to have success in other 
parts of the world. I am and will be, if confirmed, a tireless advocate 
for the importance of this region. Diplomacy in the Western Hemisphere 
has a demonstrable and direct impact on the lives of Americans unlike 
that of any other region.
    The National Security Strategy lays out that our economic 
prosperity is central to U.S. national security. Our prosperity is 
deeply intertwined with the Western Hemisphere, home to more than half 
of the nations with whom we have free trade agreements. Overall trade 
with the Western Hemisphere is nearly three times as much as we trade 
with China and we have an overall trade surplus with this region.
    The administration's policy toward the Western Hemisphere is 
rightfully dynamic and robust--both in seizing opportunities and in 
addressing challenges. For example, interaction with Mexico is intense, 
daily, and institutional. I am personally committed to ensuring that 
the administration's focus on Mexico will bear fruit in a positive way 
that people can see.
    The administration has been and remains steadfast on Venezuela, 
implementing a strategy to help return the country to a democratic 
path. As Vice President Pence said recently, Venezuela shows us the 
tragedy of tyranny. This unprecedented challenge requires robust 
diplomacy, creativity, and more than anything, fierce resolve.
    Last year, the administration announced its Cuba policy, which 
seeks to support the Cuban people, their human rights, and not to allow 
U.S. economic interaction to aid the repressive security services. The 
administration has continued support for the U.S. Strategy for Central 
America, in fact expanding it by aligning more closely with Mexico.
    The administration has continued to support sustainable peace in 
Colombia, at the same time reaching new agreements with Colombia to 
address the alarming growth of coca cultivation and production. The 
Caribbean 2020 plan sent to Congress last year looks to foster security 
and prosperity in a region important to our interests and vulnerable to 
transnational crime, poverty, and natural disasters.
    I have had the privilege of working on something I am passionate 
about for nearly two decades. This includes government service over 
four presidencies for administrations on both sides of the aisle. I 
have seen the Western Hemisphere from three executive branch 
departments, from the private sector, from think tanks, and from 
extensive travel and study abroad. I began my career as an intelligence 
analyst and served for more than a decade, rising to manage a team with 
leadership responsibilities across a large office focused on the Middle 
East. On the National Security Council Staff at the White House, I was 
Director for Brazil and the Southern Cone, Director for Mexico and 
Canada, and did an interim period on the Andean region.
    Working in the private sector for five years was a lesson in how 
the private sector can be a U.S. policy force multiplier. I also had 
the good fortune to work, twice--first as an intern and two decades 
later in a leadership role--at the Center for Strategic and 
International Studies (CSIS).
    Since last June, I have had the great privilege to work closely 
with the Western Hemisphere Bureau while serving on the Secretary's 
Policy Planning Staff. I reunited with former colleagues and have been 
reminded how committed public servants work long hours to get the job 
done, to advance U.S. policy interests, and to serve their nation. I 
have seen how much talent and good humor there is. I can assure you 
that working with WHA is both humbling and deeply reassuring because, 
if confirmed, we will all be in this together. I could not ask for a 
better team. If confirmed, my job will be to ensure they all succeed 
and the United States succeeds as well.
    I'd like to close by thanking you all for your continued commitment 
to getting it right in the Western Hemisphere. So many of you care 
deeply about this region and for that I thank you. I am happy to answer 
your questions.


    Senator Rubio.  Thank you.
    Mr. George.

 STATEMENT OF HON. KENNETH S. GEORGE, OF TEXAS, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
     STATES OF AMERICA TO THE ORIENTAL REPUBLIC OF URUGUAY

    Mr. George. Chairman Rubio, Senator Menendez, distinguished 
members of the committee, and friends, thank you for the 
opportunity to be with you today. It is, indeed, an honor to 
appear as President Trump's nominee to the United States 
Ambassador to the Oriental Republic of Uruguay. I am humbled by 
the opportunity to serve our country again. If confirmed, I 
look forward to working with all stakeholders, here and in 
Uruguay, to further our interests and foster closer and 
mutually beneficial relations with the Government and people of 
Uruguay.
    Although all could not be here, I am supported today by the 
most important people in my life, my wife of 43 years, Tricia, 
and our children, Kenneth, Patrick, Clement, Elizabeth, and 
their spouses. I will spare you--I will not list all the 
grandchildren, but we have them, including one on the way, and 
they are brilliant and beautiful, and I am blessed to enjoy 
their support.
    Our family has a long history in the service of our 
country. Without detailing our ancestors' endeavors in General 
Washington's Army, I will say my grandparents met on the 
battlefields of France in World War I. She is an Army nurse 
from Pennsylvania, and he, an Army captain. Tricia's and my 
father both served in the Army Air Corps in World War II. I 
served as an officer in the 82nd Airborne Army Reserve. Tricia 
serves as--on the Texas committee of the National Museum of 
Women in the Arts, here in D.C., and is an active cattle 
rancher. Kenneth, our eldest, worked as a congressional intern 
in the Treasury Department in the Office of Economic Policy. 
Patrick is a major in the Marine Corps Reserves after serving 
two tours in Iraq. Clement spent 4 years in the Navy as a 
surface warfare officer with multiple deployments to the 
Persian Gulf, and supported our humanitarian relief efforts in 
Haiti after the 2010 earthquake. Elizabeth interned in the 
Office of the Attorney General of Texas, has in--been active in 
numerous political campaigns. She graduated from the University 
of Chicago Booth School, where she was president of the 
Graduate School of Business. Obviously, I am a proud papa.
    I believe my career, both in government service and in 
private sector, has prepared me for this opportunity. This 
nominating process is not new to me. As Senator Cornyn 
mentioned, I served as Assistant Secretary and Director General 
of the U.S. and Foreign Commercial Service during President 
Reagan's first term. I was responsible for our trade 
promotional staff and programs in 65 countries and 124 in 
cities. As you will also remember, during President Reagan's 
first term, the Caribbean Basin Initiative was passed. I was 
given additional implementation responsibilities under the 
leadership of USTR William Brock. And lastly, you will remember 
that there was a little fracas in Granada, and we were tasked 
to lead the economic rebuilding of the island. It was our 
responsibility to restore work opportunities and sources of 
self-pride in the local population, and restore economic 
stability.
    In the private sector, I could best be described as an 
entrepreneur. In the '70s, it was real estate development and 
building a publicly-held conglomerate with furniture 
manufacturing, real estate development, and oil and gas 
exploration. In the '80s and '90s, it was the Government and 
hospital management. With the help of outstanding staff, I put 
together, and was chairman and CEO of, the second-largest ESOP 
in the United States at the time. EPIC Healthcare Group had 
15,000 employees in 25 States. After selling EPIC to 
Healthtrust-HCA, I was fortunate enough to build one of the 
largest private ambulance companies in the State of Texas.
    I can honestly say that, with--in every case, building up a 
high-functioning team was the key to our success. Leadership, 
clarity of vision, and allowing people to do their best is the 
fertile soil that enables an organization to flourish and 
accomplish the mission. If confirmed, this is what I hope you 
will find I bring to the office.
    Uruguay is an exciting country. It is one of, if not the 
most, progressive in Latin America, with the largest middle 
class, a strong history of democratic values, has a record of 
respecting religious freedoms. The Economist magazine says that 
Uruguay has the only complete democracy in Latin America, and 
it equals Canada's. And, I might add, it has the largest 
commitment of soldiers to the U.N. peacekeeping operations of 
any country in Latin America, almost 1,000 soldiers. If 
confirmed as Ambassador, I would work to strengthen cooperation 
with the Government of Uruguay and international organizations 
to combat all forms of human trafficking.
    In closing, if confirmed, I look forward to working with 
all stakeholders to maintain a strong relationship with 
Uruguay, to advance our national interests, to support 
continued development of democratic institutions in the 
Oriental Republic of Uruguay, a relatively small country with 
an outsized influence in the region.
    Thank you, and I look forward to your questions.
    [Mr. George's prepared statement follows:]


                Prepared Statement of Kenneth S. George

    Chairman Rubio and distinguished members of the committee, thank 
you for the opportunity to be with you today. It is indeed an honor to 
appear as President Trump's nominee to be the United States Ambassador 
to the Oriental Republic of Uruguay.
    I am humbled by the opportunity to serve our country again. If 
confirmed, I look forward to working with all stakeholders here and in 
Uruguay to further our interests and foster closer and mutually 
beneficial relations with the Government and people of Uruguay.
    Although all could not be here, I am supported today by the most 
important people in my life, my wife of 43 years, Tricia, and our 
children, Kenneth, Patrick, Clement, and Elizabeth and their spouses. I 
won't list the grandchildren but we have them, including one on the 
way, and they are brilliant and beautiful. I am blessed to enjoy their 
support and encouragement.
    Our family has a long history of service to our country. Without 
detailing our ancestors' endeavors in General Washington's army, I will 
say my grandparents met on the battlefields of France in WWI, she as an 
army nurse from Pennsylvania and he an army captain. Tricia's and my 
father both served in the Army Air Corps in WWII. I served as an 
officer in the 82nd Airborne Army Reserve. Tricia serves on the Texas 
committee of the National Museum of Women in the Arts here in D.C. and 
is an active cattle rancher.
    Kenneth, our eldest, worked as a Congressional intern and in the 
Treasury Department in the Office of Economic Policy. Patrick is a 
Major in the Marine Corps Reserve after serving two tours in Iraq. 
Clement spent four years in the Navy as a Surface Warfare Officer with 
multiple deployments to the Persian Gulf and supported our humanitarian 
relief effort in Haiti after the 2010 earthquake. Elizabeth interned in 
the office of the Attorney General of Texas and has been active in 
numerous political campaigns. She graduated from the University of 
Chicago's Booth School, where she was president of the graduate school 
of business.
    I believe my career, both in prior government service and in the 
private sector, has prepared me for this responsibility. This 
nominating process is not new to me. I served as Assistant Secretary 
and Director General of the U.S. and Foreign Commercial Service in 
President Reagan's first term of office. I was responsible for our 
trade promotional staff and programs in 65 countries, 120 foreign 
cities. During President Reagan's first term, the Caribbean Basin 
Initiative was passed. I was given additional implementation 
responsibilities under the leadership of USTR William Brock. Lastly, 
you will remember there was a little fracas in Granada and we were 
tasked to lead the economic rebuilding of the Island. High unemployment 
in the male population was presenting an excellent recruiting 
opportunity for Cuba's extraterritorial political ambitions. It was our 
responsibility to restore work opportunities and sources of self-pride 
in the local population and restore economic stability.
    In the private sector, I could best be described as an 
entrepreneur. In the 70's, it was real estate development and building 
a publicly held conglomerate with furniture manufacturing, real estate 
development, and oil and gas exploration, headquartered in Midland, 
Texas. In the 80's and 90's, it was the Government and hospital 
management. With the help of outstanding staff, I put together and was 
Chairman and CEO of the second largest ESOP in the country at the time, 
EPIC Healthcare Group, with 15,000 employee-owners in 25 states. After 
selling EPIC to Healthtrust-HCA, I was fortunate enough to build one of 
the largest private ambulance companies in Texas.
    I can honestly say, in every case, building up a high functioning 
team was the key to our successes. Leadership, clarity of vision, and 
allowing people to do their best is the fertile soil that enables an 
organization to flourish and accomplish its mission. If confirmed, this 
is what I hope you will find that I bring to the job.
    Uruguay is an exciting country. It is one of, if not the most, 
progressive in Latin America with the largest middle class, has a 
history of strong democratic values, and has a record of respecting 
religious freedoms. The Economist magazine says that Uruguay has the 
only ``complete democracy'' in Latin America and that it equals 
Canada's. I might add, the largest commitment of soldiers to U.N. 
Peacekeeping operations around the world of any country in Latin 
America, bigger than Mexico, Brazil, Argentina.all others. If confirmed 
as Ambassador, I would work to strengthen cooperation with the 
Government of Uruguay and international organizations to combat all 
forms of human trafficking.
    The United States is both Uruguay's fourth largest trading partner, 
with a trade surplus, and an important investor--but still only fourth. 
China is their largest trading partner. I am committed to helping 
develop business opportunities in Uruguay on behalf of U.S. companies.
    In closing, if confirmed, I look forward to working with all 
stakeholders to maintain a strong relationship with Uruguay, to advance 
our national interests, and support continued development of democratic 
institutions in the Oriental Republic of Uruguay, a relatively small 
country, with an outsized influence in the region.
    Thank you.


    Senator Rubio.  Thank you very much.
    Let me start with Ms. Breier. The--you referenced, in your 
opening statement, the administration change of policy towards 
to Cuba. It is always a good point to remind people that our 
goal in Cuba, ultimately, is the restoration of a democracy. We 
have an economic model that we would suggest. Uruguay is a good 
example of what works. But, that is for the people of a free 
Cuba to determine. Our goal is democracy. And the threat to 
democracy in Cuba has been exacerbated by a government that is 
trying to transition its way into becoming a long-term, 
permanent, and accepted fixture as a legitimate government. And 
one of the ways they are doing that is, they have this 
military-owned holding company named GAESA, G-A-E-S-A, which 
is--basically owns every profitable venture in Cuba. And so, 
they are trying to create an economic dictatorship on top of 
the political one. And when the President made his change in 
policy towards Cuba, that is what he really focused on, was 
hitting that economic activity. So that today an American 
traveler to Cuba can frequent this--these so-called small 
businesses that are independently owned and the like. In fact, 
they are in a privileged position. But, theoretically, anyway, 
under the changes, you are not supposed to be going and 
spending money at these GAESA-owned entities. As part of that 
agreement and the executive order, it was left to the State 
Department to define the companies and the entities that fell 
under the criteria of being sanctioned. And, while I think the 
list is certainly better than what existed before the executive 
order, as you and I discussed when we met, the list is 
incomplete. There are a series of companies and ventures that 
remain untouched and, as a result, have created the ability to 
circumvent much of the intent of what the President did. And it 
is unfortunate. We see this pattern repeat, where Presidents 
determine a direction, and then the people who write the regs--
the regulations and the law figure out ways to potentially 
undermine it. And that needs to be fixed.
    And so, my question is, Will you commit to working with us 
and the administration, including the National Security 
Council, to amend that list? Obviously, the decision would 
ultimately be up to the Secretary, but to add to that list 
additional entities who, as of now, should be on the list, but 
are escaping sanction?
    Ms. Breier. Thank you, Senator. Thank you for the question. 
I agree with you wholeheartedly on the direction and on the 
direction of the President's policy under the NSPM of June of 
last year. And with regard to the specific, the restricted 
list, that is a collaborative effort between the Department and 
the Department of Commerce and the Department of Treasury. And 
I certainly will commit to reviewing it. My understanding is 
that it is a living document. The initial tranche that was 
announced last year listed some 180 entities, I believe, and 
some 83 hotels. And we certainly can continue to review that as 
new information comes to light.
    Senator Rubio.  Thank you.
    Obviously, the other point, in terms of defending democracy 
in the region, is Venezuela. And I do want to say--you know, 
people can say what they want about other parts of the world--I 
do think the administration's approach to Venezuela has, quite 
frankly, been textbook. Interesting that the region is leading. 
It is the Lima Group, that we are not even members of, we are 
supportive of, that are leading the efforts and use the OAS--
and I give a--it is a good opportunity to give a shout-out to a 
friend and someone who I think did a phenomenal job at the 
latest OAS meeting, Ambassador Carlos Trujillo. We saw 
additional countries come onboard and support us.
    So, my question, first, to Mr. Mondello and Mr. George, is, 
Would you both commit to helping, as one of your top 
priorities, if confirmed, to talk to our allied governments in 
Trinidad and in Uruguay, and urge them to join the rest of the 
democracies in the region in these efforts at the OAS to call 
out Venezuela and expel them from an organization of 
democracies, which is the official administration policy?
    Mr. Mondello. Well, this is a very important point, 
Senator, and I agree, I think it is incumbent upon the 
Ambassador to Trinidad and Tobago, which is only 6.7 miles away 
from Venezuela, to do all in his power, or her power, to get--
to be into Venezuela to discuss the various problems that exist 
and see if the--we can bring some stability to what is going on 
over there. Because right now it is a very unstable situation, 
and it really needs a lot of attention. And, frankly, I think 
that--I think that it is something that has to be done, and 
should be done.
    Senator Rubio.  Mr. George?
    Mr. George. Senator, it is an excellent point, and clearly 
one of the most sensitive issues, politically, between the 
United States and the Oriental Republic of Uruguay. They--the 
Uruguayan Government has been very helpful in the OAS on a 
number of occasions, and--but, on the issue of Venezuela, it 
has been a very tough call. I know how sensitive it is within 
the Government of Uruguay, but I can assure you that it will be 
one of my principal focuses, in regards to my discussions with 
the Government, because it is an important objective of our 
country and for the peace and security of the region.
    Senator Rubio.  Ms. Breier, we talked about this when we 
met a few weeks ago, but we are now at a point where we are 
heavily sanctioning the regime and the individuals responsible 
for the suffering, but the migratory crisis of Venezuelans 
leaving, in addition to the humanitarian aspect of it, which is 
among the worst in the world now--I mean, we are seeing things 
coming out of Venezuela that we are used to seeing in other 
parts of the world; we have never seen anything like it in the 
western hemisphere, absent, you know, a natural disaster or 
something of that nature--is not just problematic for the 
people of Venezuela, it poses a real and growing challenge, and 
even threat, to their neighbors in Colombia, Brazil, other 
countries in the region that are taking in these flows. And one 
of the things we have done is, we have provided humanitarian 
assistance and help to Colombia in these camps, which is 
important. The problem is, the flip side of it is, the more aid 
is announced to these camps, the more people flow to these 
camps.
    Is it--is the administration, in your view, prepared to 
begin to develop plans to try to figure out how we can deliver 
humanitarian aid within Venezuela, distributed by 
nongovernmental organizations and perhaps despite the objection 
of the Venezuelan Government? We cannot allow people to 
continue to suffer and die. Because what we are about to see 
there, in addition to the starvation and the death from 
diseases, is the spread of communicable diseases that have been 
wiped out, and suddenly now we could have measles outbreaks in 
these countries, in the region, which ultimately poses a threat 
to us, as well. So, what is--beyond the sanctions, what is, in 
your view, 2.0? What more can we do to help the people of 
Venezuela? Because that is an important aspect in all of this.
    Ms. Breier. I agree with you, Senator, and share your 
concern. I think, broadly speaking, the administration's 
strategy is a broad and deep one. And I appreciate your calling 
it a textbook, because I do think the administration has gotten 
it right on Venezuela in what is a tragic situation.
    I could not agree more, this is a manmade crisis. This is 
not a natural disaster. This is the result of one man and a 
small group of people governing in a way that has taken a once 
prosperous nation and destroyed it. In terms of the 
administration's strategy, we are looking at all aspects of it. 
I believe our aid to neighboring regions and international 
institutions is now in the area of 40 million. We are looking 
at other ways to approach the problem. We certainly need to 
continue to call on the Government of Venezuela to accept 
humanitarian aid. To this point, the Government has refused to 
do so. And if they fail to do so, there are other avenues that 
we can pursue. And I do not want to get ahead of 
decisionmaking, but there is certainly a lot of thought being 
given to what we can do to try to get aid into Venezuela as 
well as helping our regional allies in Colombia, Brazil, 
Gayana, and throughout the Caribbean and other places, who are 
absorbing the impact of this.
    Senator Rubio.  Ranking Member.
    Senator Menendez. Thank you, Mr. Chairman.
    Over the weekend, the President took to Twitter to 
criticize Canadian Prime Minister Trudeau. His closest advisors 
refer to Prime Minister Trudeau as, quote, ``a backstabber,'' 
said, quote, ``There is a special place in hell for him.'' This 
comes months after the President openly boasted about lying to 
Prime Minister Trudeau. Such language is not only outrageous, 
but it runs completely contrary to the close partnership that 
has existed between the United States and Canada for decades on 
issues that span the globe, from Ukraine to Syria to 
Afghanistan.
    So, Ms. Breier, do you share these views?
    Ms. Breier. Thank you, Senator. I think it is an important 
question.
    The relationship with Mexico and Canada have been the focus 
of the bulk of my 20-year career in western hemisphere affairs. 
I am acutely aware of the importance of these relationships, 
and how deep and institutional they are, across the board. I 
think what we are witnessing right now is a disagreement over 
trade. And in the 20-plus years I have been doing this, I 
cannot think of a time where we have not had a disagreement on 
trade, either with Canada or with Mexico. So, I think these are 
the types of things that we have been able to overcome in the 
past, in that there is a deep institutionality in these 
relationships that will allow us to surmount the areas where we 
do not agree and continue working on the----
    Senator Menendez. But, we can----
    Ms. Breier.--many areas where----
    Senator Menendez.--disagree without being disagreeable. Am 
I going to have you--you want me to vote on you as the 
Assistant Secretary of State for the Western Hemisphere, and 
you cannot tell me that this language is not acceptable? Do I--
would I ever expect you to use that language? Because if not, 
you are never going to get through this committee.
    Ms. Breier. Senator, if confirmed for this position, my job 
would be to be a top diplomat on this file. I understand very 
well the need to adhere to proper diplomatic forum, and will 
choose my words carefully.
    Senator Menendez. Do you believe such comments help advance 
the U.S. national interests in this hemisphere?
    Ms. Breier. I think, Senator, what the administration is 
pointing out is that there are some things in trade that have 
not been fair and reciprocal, and that the administration is 
focused on trying to right----
    Senator Menendez. Is Mexico the second-largest export 
market for goods and services in the world? Second-largest?
    Ms. Breier. Yes, sir.
    Senator Menendez. It is. Let me ask you something. Do you 
believe Canadian steel and aluminum constitute a threat to U.S. 
national security?
    Ms. Breier. I believe the finding of the 232 Panel suggests 
that the overcapacity globally is the threat to national 
security, not necessarily Canadian steel and aluminum 
specifically.
    Senator Menendez. Let me ask you this. With--you have 
extensive experience, which I admire, working on issues related 
to Mexico. And I know you fully understand how important this 
relationship is. But, we cannot expect to secure our border, 
address undocumented immigration, address challenges related to 
narcotics trafficking which are contributing to the heroin and 
fentanyl epidemic that is plaguing our country. Now, the 
problem is, is that the administration's comments continue to 
raise the political cost for any Mexican authority that wants 
to cooperate with us. And we need their cooperation. But, 
everybody has a domestic constituency. And if you make it 
impossible for a government official, including the highest 
elements of the Mexican Government, to work with the American 
Government--I mean, because, at the end of the day, there is a 
huge domestic cost--it is not going to happen.
    So, as our person who would be our principal diplomat for 
the Americas, do you intend to formulate a strategy to make 
Mexico pay for a border wall between our countries?
    Ms. Breier. Senator, I could not agree with you more. This 
is one of the most fundamentally important relationships to the 
United States. And, despite the ongoing disagreements at the 
political level, as I mentioned, I think that the relationships 
are making progress behind the scenes in an institutional way. 
And I think that that is very important. We live next door to 
each other, we are in this together, and I think everyone 
realizes that.
    Senator Menendez. Do you intend to formulate a strategy, 
was my question.
    Ms. Breier. I intend to work very closely, if confirmed, 
with the Government of Mexico on securing the border and doing 
all of the things we can do cooperatively with Mexico to 
address threats before they get there.
    Senator Menendez. Do you believe Mexican steel and aluminum 
constitute a threat to the national security of the United 
States?
    Ms. Breier. I believe the 232 report concluded that global 
oversupply is the threat, Senator, not specifically Mexican----
    Senator Menendez. Do you believe the United States can 
address a border security, migration, and drug trafficking 
without a productive partnership with Mexican authorities?
    Ms. Breier. I do not. I think a productive relationship is 
necessary.
    Senator Menendez. Let me ask you another important, 
different set of questions. Over the last 7 months, the 
Department of Homeland Security, acting in consultation with 
the Department of State, has terminated temporary protective 
status for Haitians, Salvadorans, and Honduran nationals. This 
status, as you know, was designed to protect individuals who 
are unable to return to the dire conditions in their homeland. 
To this point, I am extremely concerned that, when then-
Secretary Tillerson decided to recommend the termination of TPS 
for Haitians, Salvadorans, and Hondurans, he deliberately 
disregarded the advice of our embassies on the ground, of the 
foreign policy officials who were tasked with ascertaining the 
conditions on the ground.
    So, I would like to ask you. At the time the State 
Department made its decisions to not recommend an extension of 
TPS for Honduras, El Salvador, and Haiti, you were working as a 
senior advisor covering western hemisphere affairs for the 
Office of Policy Planning for the Secretary of State. What role 
did you play in this decisionmaking process?
    Ms. Breier. Thank you for the question, Senator.
    The Office of Policy Planning is part of the Secretary's 
staff and it tends to be a strategy office. What we do, 
principally, is oversee documents that are going to the 
Secretary, and also try to assist on developing strategies, for 
example, on that country--countries and challenges like 
Venezuela. So, in this particular case, I was involved, in the 
sense that I was aware the debate was going on and that the 
discussions were happening, but I was not directly involved in 
the day-to-day.
    Senator Menendez. So, as the senior advisor covering the 
western hemisphere on policy planning in an office of 20 
individuals, at most, you were unaware and had no impact on the 
decision?
    Ms. Breier. Senator, I did not say I was unaware. I said I 
was involved in overseeing and, broadly, was aware that----
    Senator Menendez. So, when you say you were involved in 
overseeing, give me a sense of what you were doing as it 
relates to this issue.
    Ms. Breier. I would--when documents would come forward, I 
would review them and sign off on them, or not, as they went to 
the Secretary----
    Senator Menendez. I am sorry, come----
    Ms. Breier.--for his----
    Senator Menendez.--come forward from where?
    Ms. Breier. From the bureaus. There are multiple bureaus in 
the Department----
    Senator Menendez. And those documents, we now know, 
basically all said that TPS should be continued, in the 
national interests of the United States. Is that not a fair 
statement?
    Ms. Breier. I did not see--I did not see it evolve the way 
you are describing. I think the embassy----
    Senator Menendez. We have----
    Ms. Breier.--suggested that----
    Senator Menendez. We have copies of the documents. Are you 
telling me those documents did not say that it is not in the 
national interests of the United States to extend, to--not 
extend, to end TPS?
    Ms. Breier. Senator, I think that--what I saw was a 
vigorous debate that went on in the building.
    Another point I would like to make is that I think there is 
a tendency to separate between political and career, in the 
sense that the views of career folks were not heard. And I do 
not--I did not see it that way at all. And, if confirmed, I 
think--I would like to foster an environment where all views 
are heard, regardless of whether you are career or political.
    I witnessed a vigorous debate on this, and I do not think 
that it is entirely accurate to characterize it as overriding 
of----
    Senator Menendez. Well, I guess----
    Ms. Breier.--career----
    Senator Menendez.--you and I are going to have go over the 
documents, because a plain reading of the documents make it 
very clear that those who are on the ground in our embassies--
and this concerns me certainly for these three countries, but 
what is going to happen, moving forward. If you put people, who 
you want to run our embassies abroad, and they--whether they be 
political appointees or career individuals, and those who work 
with them--and they give you the advice that this is not in the 
national interests of the United States, and you reject their 
advice because of other political considerations, I think that 
is a bad process. So, we are going to have to go over the 
documents, because the documents are pretty clear.
    Thank you, Mr. Chair.
    I have questions for the other nominees, but, in deference 
to my colleagues, I will wait.
    Senator Rubio.  I just want to clarify, because that is an 
interest of mine, as well, the whole TPS issue. And if I hear 
you correctly, what you are describing is an internal process 
in which the State Department opined on the national security 
elements for purposes of the diplomatic corps: What is the 
impact it is going to have in Honduras, in Haiti, and the like? 
But, then there were other parts of this debate, outside of the 
State Department, that were viewing it through the migratory or 
DHS. And, ultimately, the policy was made because of all these 
interconnected silos, so to speak.
    Ms. Breier. That is correct.
    Senator Rubio.  Is that how you are describing the----
    Ms. Breier. Yeah.
    The Chairman:--process?
    Ms. Breier. That is correct, Senator. Ultimately, the 
decisionmaking authority on this issue rests with the 
Department of Homeland Security.
    Senator Rubio.  Okay. And so, the State Department just 
informed them on that, and that is the--so, that is the process 
under----
    Ms. Breier. Right. The State Department informed as to 
whether the underlying conditions that justified the original 
designation continued to exist.
    Senator Rubio.  Right. And that issue, by the way, probably 
deserves a broader--just the State Department portion of it 
deserves a broader flushing out, in terms of the rationale, 
because I, too, believe that it would have a very significant 
impact on Honduras and Haiti and these countries that we have 
invested in. So.
    Senator Cardin.
    Senator Cardin. Ms. Breier, I want to follow up on this, 
because I am confused now. Senator Menendez has accurately 
portrayed the information that we have reviewed that showed 
that the missions in country recommended the continuation of 
TPS. The vigorous debate you are referring to, did that happen 
within the State Department or did that happen within Homeland 
Security?
    Ms. Breier. It--to my knowledge, it happened within the 
State Department, sir.
    Senator Cardin. So, you are saying that the State 
Department itself recommended the termination of TPS?
    Ms. Breier. I am saying, Senator, there was not a unified 
view within the Department on this, and then the Secretary made 
a decision.
    Senator Cardin. The Secretary of State. And the Secretary 
of State supported the termination of the TPS status.
    Ms. Breier. Yes, sir.
    Senator Cardin. I am not sure we were aware of that. I 
think that is different than--at least, I thought the decision 
was made by Homeland Security, and that with--and that the 
recommendation from State Department was different. So, you are 
saying----
    Ms. Breier. So, the recommendation from the State 
Department assesses whether the original conditions exist and 
that these recommendations----
    Senator Cardin. State Department overruled the views of the 
mission. That--the last time we saw something like this happen 
was on the TIP report. And this committee, rightly so, got 
outraged, the politics was overruling something that we feel 
pretty strongly about. State Department's assessment deals with 
the circumstances in the countries of Central America or Haiti 
that would allow these individuals to return. Is it--are they 
prepared to take them back? Are the circumstances better? Is it 
in our interests, et cetera? And what you are telling me now, 
that there was a rigorous debate in State Department that 
overruled those on the ground that had talked to the host 
countries, that strongly supported the continuation of TPS. 
That is different than I thought, but it is what you are 
telling me happened.
    Ms. Breier. Senator, what I am trying to suggest is that 
the inputs on the ground are an input into a broader process, 
where they come into the Department, into multiple bureaus, who 
deliberate and then make a recommendation to the Secretary of 
State, who then makes a recommendation to the Secretary of 
Homeland Security based on whether the original conditions that 
justified the TPS designation continue to exist.
    Senator Cardin. And the ultimate recommendation from the 
State Department was to terminate the TPS.
    Ms. Breier. That is my understanding, sir, yes.
    Senator Cardin. Let me go move on to other subjects. First, 
let me thank you all for your willingness to serve, and thank 
your families.
    I want to ask a general question first. I hope that you can 
recognize that we are going to follow up on this. And that is 
your commitment to advance American values and human rights in 
the hemisphere, or the two countries in which you have been 
nominated to represent the United States. We expect that you 
will inform us as to the progress that you are making on human 
rights, something I asked of all of our nominees, and that it 
will be a top priority of yours in the countries. There is no 
country in our hemisphere that could not improve on human 
rights, and particularly with the Assistant Secretary. To me, 
it is critically important that this be spotlighted in your 
work.
    Do we have your commitment that you will be working with us 
and will share information and respond to requests that we have 
in regards to human rights issues?
    Mr. George. I guess I will go first. Yes, sir. And I will 
say that--if I may, that Uruguay is like pushing on an open 
door in this regard, as you are probably well aware. They were 
the president of the Human Rights Council in the U.N. They 
cofounded the Equal Rights Coalition. They are a very 
progressive country in regards to LGBTI rights. So, it will be 
an issue that will be taken up and supported vigorously in my 
country, if confirmed to the Oriental Republic of Uruguay.
    Mr. Mondello. Yes, I would agree with George. I believe 
that it is a--an--very, very important issue, if not the most 
important issue. Human rights, when it comes to Trinidad and 
Tobago, could possibly be some very--with--some very difficult 
situations going on there regarding human trafficking, 
regarding drugs, regarding so much of this. And I think that it 
is going to be the responsibility of the Ambassador that goes 
there, if I am confirmed, to delve into these problems, use the 
agencies in which I, if confirmed, would have the ability to 
speak with, to aid the local Trinidadian Government, in terms 
of handling these problems.
    Senator Cardin. And speaking to the two countries that 
are--that we have specific nominees for, it is important that 
our mission be an open door for those that want to hear an 
advocate for human rights. Sometimes the host country is not 
particularly pleased that we put a spotlight on problems in 
their own country. I take it you are both prepared to carry on 
the tradition of our missions to be there on behalf human 
rights advocates.
    Mr. Mondello. Without question, Senator.
    Mr. George. Yes, sir, without question.
    Senator Cardin. Ms. Breier, I--you and I have had a chance 
to talk about this before, so I want to--and we talked about 
the concern in Paraguay of a Marylander, who, in 2015, Alex 
Villamayor, who was brutally raped, murdered in Paraguay, that 
it was a long time before they acknowledged the circumstances. 
And there was--there still has been a delay in dealing with 
this. We have asked the FBI to help. We have had some 
cooperation, but not enough. Will you make this a personal 
priority of yours to resolve this particular open case against 
an American?
    Ms. Breier. Yes, Senator.
    Senator Cardin. Appreciate that.
    And then, lastly, as it relates to OAS, we had a 
conversation also on OAS as to how we can strengthen that. 
There is interest, in this committee, to strengthen the 
parliamentary dimension within OAS. It is located kind of 
conveniently for us to participate, being located here in 
Washington. Will you agree to work with our committee as to how 
we can strengthen the OAS to be more effective in dealing with 
the challenges we have in our own hemisphere?
    Ms. Breier. Yes, Senator. I continue to believe the OAS is 
the premier institution in our hemisphere, and we should do 
everything possible to strengthen it.
    Senator Cardin. Thank you.
    Senator Rubio.  Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And I want to thank Senator Risch also for letting me jump 
the line. I appreciate that.
    To--yeah, you--I owe you one--to all of you, I applaud you 
for your nominations and for your willingness to serve.
    Ms. Breier, I am going to start with you, and I may only 
ask you questions, just because of my passion about the billet 
that you are inheriting. Senator Menendez's questions to you 
about the statements about Canada put you in a hard position. 
And so, I am not really even going to ask you a question about 
it. You are a diplomat with a great deal of experience, and you 
understand this region very well. And I think you know what 
diplomatic protocols are and what they are not. And so, has 
there been trade issues with Canada in the past? Absolutely. 
And there always will be. But, they are one of our biggest 
trade partners. And when the right hand of a President says 
that the Prime Minister of Canada, you know, deserves a place 
in hell, that is just completely outside the range of reason. 
It is something that should be on a South Park episode. It is 
not something that is presidential behavior. And so, when we 
asked you to comment on it, I mean, the President has nominated 
you, so that puts you in a really hard position. But, I guess 
the reason we ask a question like that is--I met with you in 
the office. You know this area very well. I am glad to have 
somebody of your experience in it. But, just do not trade a 
lifetime reputation of service to the country and understanding 
of the region to--you know, I want good people to take these 
jobs, even under a difficult circumstance, but you are going to 
face a lot of opportunities, should you be confirmed, on a lot 
of moments where I think there is going to be a very difficult 
choice, and it is going to be the integrity that you have built 
up over decades doing this work, and moments where you can just 
kind of squander it.
    I mean, Canada and Mexico are two of our biggest trading 
partners nationally, and Virginia certainly. And, as the 
Senator said, that--I have visited Canadian troops in 
Afghanistan and Iraq. I have seen Canadians at Landstuhl 
Hospital in Germany who have been injured side by side with 
U.S. And while trade disputes with Canada are nothing new, 
language like that is unprecedented. I am understanding the 
Canadian Parliament today is doing a resolution condemning the 
President of the United States. That is not the norm. And with 
as many equities as we have on the table with these nations, so 
many issues, from border to trade to hemispheric--other 
hemisphere activities, to what we do in the security space, I 
mean, anybody who is voting for you is voting for you based on 
their judgment, not about your past, but about your future. And 
just please make the right choice when those moments come.
    I want to ask you--the last thing that Senator Cardin asked 
you was about the OAS. And I want you to tell me--you said 
preeminent institution there, but talk to me a little bit about 
what you think of the OAS right now. I think it has had some 
ups and downs. I think it is--there has been times that have 
been less effective, more effective. But, give me your sense of 
it right now.
    Ms. Breier. Thank you, Senator. And thank you for the 
comments.
    I do think the OAS is, and should be, the central 
institution. It is a very unique hemisphere, as you well know. 
We are the only hemisphere bounded by democracy and by choice 
to commit to democratic governance through the Inter-American 
Democratic Charter. So, I think that we need to continue to 
focus on building out the capacity institutionality of the OAS, 
and also reinforcing its ability to enforce its existing 
charters and conventions. Those include the conventions on 
corruption, which were highlighted in Lima recently, as well as 
the Inter-American Democratic Charter.
    So, I think we should absolutely focus on everything we can 
do. We have an excellent Ambassador there. And I think, moving 
forward, it will be a high priority to reinforce the 
institutionality, and including its role in Honduras on 
anticorruption, where I think it is playing a very important 
role, and we need to ensure we can strengthen it in that, as 
well.
    Senator Kaine. I want to use the Honduras example as just 
kind of an example of your thinking about the OAS as an 
institution, or the Department or administration's thinking. 
So, part of wanting the OAS to be stronger is if they take a 
position of strength trying to support that position. When the 
Honduran elections were held in November, the OAS concluded, in 
mid-December, based on their review, that the elections were 
fundamentally unfair and that there should be a re-election, 
that there should be another election. And they rendered that 
opinion. And this was not a matter of casual interest to me, 
having lived in Honduras. And I would certainly never suggest 
that another nation needed to do new elections lightly, 
especially a country like this, where I know the President. 
But, when the OAS, who I do believe is doing better and I do 
believe we are trying to elevate their influence in the region, 
reach this conclusion, I do not think they reached it lightly. 
Talk about why the U.S.--what the thinking process was, why 
this administration, despite the OAS's decision, decided to 
say, ``No, the election should not be rerun, and we should just 
move forward.'' What was the process behind that?
    Ms. Breier. Thank you, Senator.
    I think the situation was, we ended up with a very close 
election in Honduras. The OAS report, I think, was very 
critical of some of the underpinnings of how the election was 
carried out. But, the report, itself, did not call for a new 
election. The report simply pointed out that there were some 
irregularities and issues of concern. We also had input from 
the European Union, which had a delegation there, as well, 
observing the election.
    When taking all of that into consideration, it is my 
understanding that the policy was that there was not anything 
that convinced the policymakers at the time that the outcome of 
the election had been changed. Even though the United States 
made a strong statement acknowledging the irregularities in the 
work of the both the OAS and the EU missions, that there was 
not sufficient information suggest that the outcome would have 
been changed.
    So, the administration did, in fact, support Honduran 
institutions that had concluded, after much review and 
reconsideration and recount of a number of the actas, that the 
election should stand.
    Senator Kaine. I may want to follow up with you on this, 
because I am just looking at a Reuters report from December 
with the title ``OAS Says Honduran Presidential Election Should 
Be Redone.'' I agree with you, they called out irregularities 
in the election, but I thought they reached some conclusion or 
suggested that the elections be redone.
    Last thing I will just say is, I share the concerns my 
colleagues have raised about the TPS situation. And again, I 
will use Honduras as an example, but we could talk about 
others. I had a visit, which is an annual visit in my office, 
from the Association of General Contractor. Now, they usually 
come to me, and they talk to me about construction issues, tax, 
regulation. This year, they came in and they brought El 
Salvadoran and Honduran workers with their construction firms, 
and they talked about how devastating it would be to their 
businesses in the--in this country, if these Salvadoran and 
Hondurans were be--were to be pushed back to Honduras and El 
Salvador. I spoke with the President of Honduras about this 
last week, and he had the same reaction, that it would be very, 
very difficult. And he predicted, which I think what we know to 
be true, some will come back, and the reintegration will be 
very difficult, and some will choose not to come back. And 
instead of living legally, paying taxes, doing the things that 
we want them to do, they will move into the shadows of the U.S. 
economy. I just cannot fathom why the administration 
concluded--especially when I have business interests in my 
office saying, ``Please maintain TPS''--I cannot fathom why the 
administration concluded that these programs should be 
terminated. But, I look forward to--and as Senator Menendez and 
Cardin were talking about--going through the dialogue itself, 
because I also was of the impression that the U.S. Embassy in 
Honduras, in Tegucigalpa, strongly recommended that TPS be 
extended. I may have followup questions about that in writing.
    Thank you.
    Senator Rubio.  I think, Ms. Breier, just--before I turn to 
Senator Risch, just to touch a point that I thought you raised 
earlier, when I first questioned about the--sort of, the 
statements about Canada and so forth, which we get are, you 
know, unprecedented. We have not--we are not accustomed to 
seeing that sort of thing, but yet you have testified--and I 
believe all of us are aware of--there are deep institutional 
ties between the U.S., Canada, and Mexico, particularly Canada. 
This morning, everybody showed up at work at NORAD, on the 
defense side, everybody--you view your role, and those like you 
in the State Department, as keeping those institutional ties 
strong, irrespective of what might be happening on a day-to-day 
level in the political realm. And I thought that is what you 
had said earlier. I just wanted to be----
    Ms. Breier. That is correct, Senator.
    Senator Rubio.  Okay.
    Senator Risch.
    Senator Risch. Thank you.
    Thank--to all three of you, thanks for--willing to 
undertake these difficult jobs in the world we live in today.
    Mr. Mondello, I have a specific question for you. Senator 
Rubio and I sit on the Intelligence committee. And high on our 
radar screen over a number of years has been ISIS, and ISIS 
fighters, and where they come from, and how they are trained, 
and that sort of thing. The--it is--and this President has been 
very successful in tamping ISIS down, which is a good thing. 
And they are not on--in the headlines as much as they were, but 
they are still there. We are all convinced that they are going 
to rear their ugly head again somewhere under a different 
banner, or what have you. But, the thing that was surprising, I 
think, to a lot of us is that Trinidad and Tobago produce more 
ISIS fighters per capita than any other country in the western 
hemisphere. And I would like to get your thoughts on that, and 
what thoughts you might have about working with the Governments 
of those two countries to fight extremism.
    Mr. Mondello. Well, Senator, this is a very important 
problem that exists in Trinidad and Tobago. You are right, 
there was 135, I believe, individuals that went to join ISIS, 
which is the highest per-capita amount in any country--that 
have come from any country. It is a problem that needs to be 
worked on. We have to--if confirmed, I would help the 
Trinidadian Government as much as I could, together with the 
members of the agencies that are in my--would be in my embassy, 
to see if the--certain things could be alleviated. That is--
there is poverty there. There is socioeconomic problems in 
spite of the fact that they have a very high GDP in the--in 
Trinidad and Tobago. Yet, we have to have some messaging going 
on there to let people understand, you know, what we believe 
in, what we are, and try to help these people to succeed and 
become employed and not let the--not let these people be so 
susceptible to joining ISIS and getting involved in that 
nefarious behavior.
    Senator Risch. Well, I appreciate that. And I hope you will 
carry the message to those governments that this is a matter 
that is on our radar screen, and we are very concerned about 
it, particularly coming from our own hemisphere and putting 
people on the ground in other parts of the world to fight 
American interests there. So, thank you very much. And thank 
you, again, for your willingness to serve.
    Thank you, Mr. Chair.
    Mr. Mondello. Thank you, Senator.
    Senator Rubio.  Thank you, Senator Risch.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations, to each of you, on being nominated. And 
thank you for your willingness to take on these difficult 
positions at this time.
    Ms. Breier, on May 7th, Attorney General Sessions announced 
that all adults who arrive at our border--southern border--will 
be prosecuted for illegal entry, even if they attempt to seek 
asylum. This has resulted in an unprecedented policy of parents 
being separated from their children. We heard, over the 
weekend, news reports that, in the month of May alone, 415 
children were taken away at the McAllen, Texas, border 
crossing, alone. Can you tell me what the view is, in the Latin 
American countries, of this policy, and whether it is having 
any impact on either those people trying to come to this 
country to seek asylum or on our border security?
    Ms. Breier. Thank you, Senator. Thank you for the question.
    I think, as you point out, the State Department's piece of 
this question is the foreign policy one, and it relates to our 
ongoing program started under the past administration, the 
Strategy for Central America, which has benefited from the 
bipartisan support of many members of this committee. And, if 
confirmed, it would be my responsibility to ensure that we are 
continuing to carry out that policy, which is to continue to 
try change the underlying circumstances in the countries, 
themselves, so that families would never make the decision that 
we are seeing them make now to traverse Mexico and to arrive at 
the U.S. border. I have not yet had the opportunity to speak 
directly with the Governments about their reaction to the 
Attorney General's announcement. I would have to get back to 
you on that from my colleagues in the Department.
    Senator Shaheen. I would ask you to get back to this 
committee with a response on that. [The information referred to 
follows:]


    [Ms. Breier's response can be found at the end of this 
transcript in the Responses to Additional Questions section.]


    Senator Shaheen. I have to say that I think the policy is 
wrong, it is wrongheaded, and the idea that we are going to 
separate children from their families is just un-American, to 
be frank, and something that we should not allow. And I would 
hope that we, as a committee, would speak up against that and 
let the administration know very clearly where we stand. So, 
Mr. Chairman and Senator Menendez, I hope that you will take 
that under advisement.
    If you are confirmed as Assistant Secretary, Ms. Breier, 
how will you work with SOUTHCOM to combat the drug trade that 
is coming through the region, and support drug interdiction 
efforts? This is a huge issue for us in New Hampshire, and 
certainly for many States across the country.
    Ms. Breier. Thank you, Senator. It is an important 
question.
    I think--one of the things I have witnessed in my career, 
particularly in my experience at the White House in 2005-2006, 
is the importance of the coordination among the interagency and 
making sure that we are all synced up on our priorities, in 
terms of addressing the challenges that we have. I am proud to 
say that this administration, I think, has taken very seriously 
the opioid issue, both on the demand side and on the supply 
side. And clearly, SOUTHCOM is the leading tip of the spear on 
the supply side, working with regional governments and trying 
to develop strategies on maritime interdiction, eradication, 
and all of the various aspects of combating the supply side of 
this problem. So, I think it is a very important priority, and 
I certainly will commit to doing that, if confirmed.
    Senator Shaheen. Thank you very much.
    Can you describe what the administration's policy is on 
addressing the empowerment of women and the challenges that 
women, particularly in Latin America, face?
    Ms. Breier. Sure. Thank you, Senator.
    I think one of the things that, unfortunately, I did not 
think got very much coverage during the Lima Summit was that we 
announced a major initiative through OPIC on women's 
empowerment in the western hemisphere. And I certainly think it 
is a priority for this administration. The President's National 
Security Strategy references empowering women as part of its--
as part of the key strategic goals of the administration. So, I 
certainly think that that will be a priority and will commit 
also to working on that.
    The OPIC announcement was about empowering micro-enterprise 
and providing seed capital for women entrepreneurs, and I think 
it is a really interesting initiative, and one that we can do a 
lot with in the western hemisphere.
    Senator Shaheen. Well, I am pleased to hear that, because 
the fact is, the administration tried to abolish the Office of 
Global Women's Issues. It is not yet filled. And we have 
eliminated our funding for UNFPA, which is so important for 
women in Latin America and around the world, in terms of access 
to family planning. So, I would hope that we would recognize 
the importance of women, both in their contributions to their 
families and their communities and their countries, because 
what we have seen is that, when women have a more equal voice, 
or an equal voice, that that makes a huge difference in how 
their countries and their communities do.
    Mr. Mondello and Mr. George, would you both commit that, if 
confirmed, that you will work to ensure that women in Trinidad 
and Tobago and in Uruguay are a focus of what your work is as 
Ambassador?
    Mr. Mondello?
    Mr. Mondello. Absolutely, Senator. That is something that 
really would be a top priority.
    Senator Shaheen. Mr. George?
    Mr. George. Yes, Ms.--yes, ma'am. I can assure you of that. 
And we will have a strong outreach in all our activities 
regarding LBGTI and women's issues, et cetera, in the 
community.
    Senator Shaheen. Thank you very much.
    And let me just say, I want to associate my remarks with 
those that have already been presented by members of this 
committee with respect to Canada. Canada is New Hampshire's--in 
particular, but also Mexico--they are both New Hampshire's--
among our largest trading partners, Canada is our largest 
trading partner. About a third of people in the Granite State 
are direct descendants from Canadians who came down from 
Quebec, and they still--many of them still have relatives in 
Canada. And the fact that we would have this kind of discussion 
about the head of--the Prime Minister of Canada, where such 
disparaging remarks are used, I think is not in America's 
interests. And I think it is important, as Senator Kaine said, 
that we call out those kinds of comments. You know, one of the 
things that is wrong with our politics today is the fact that 
people treat that as being normal. We need to restore civil 
discourse and respect for different opinions. And we do not do 
it by calling out names. As somebody who has been part of the 
State Department and the diplomatic service for many years, Ms. 
Breier, you understand that. And I certainly hope that both of 
you, as candidates to be Ambassadors, understand that, as well. 
It is not acceptable behavior, and it is incumbent on all of 
us, Democrat and Republican, to call it out when we see it.
    Thank you, Mr. Chairman.
    Senator Rubio.  Thank you.
    We are here for the finish line. I wanted to raise a couple 
of topics.
    Ms. Breier, going back to you for a moment. And let us talk 
about Nicaragua for a moment. You followed closely events as 
they have unfolded there. It is my view, and I think the view 
of many, that that government has lost legitimacy and, frankly, 
its ability to continue to govern under the conditions. And 
there has been talks with the Catholic Church now. I hear they 
might--government might want to invite in the U.N. to figure 
out a way to moderate a way forward. They obviously are not big 
fans of the OAS. But--so, that is why they would want to do 
that. It is my view that they have lost legitimacy, and they 
are going to struggle to ever be able to govern again, and that 
probably the only path forward for them is some sort of earlier 
election than is currently called for. Obviously, 
internationally supervised and the like.
    What they do not have, in my view, is the benefit of time 
to run the clock on this. They--number one, I do think that, at 
some point, the administration--in fact, I know--is going to 
look very closely at using the Global Magnitsky Act and other 
options to go after individuals who have been violating human 
rights and are guilty of corruption. Here in Congress, there is 
a law called the NICA Act, which, unfortunately, has run into 
some procedural hurdles, but which, I believe, when voted on, 
would pass overwhelmingly. And then there is an additional 
factor, which I have strong reason to believe that, within the 
next 60 days or so, Nicaragua is going to face a real currency 
challenge. Their currency reserves are dwindling rapidly, so 
they are going to have a banking and/or currency crisis, here, 
probably in the next month and a half to two.
    So, all these things are a confluence of events. Could 
you--and I think it--we also--it is important for us to explain 
to the American people why we should care. Obviously, we have 
already talked about defending democracy in the hemisphere, and 
our--that is why it is in our national interest to do so. 
Nicaragua also happens to be, perhaps after Cuba, the nation 
where Russia has the most influence, in terms of talking about 
potential visit rights or even basing rights in the hemisphere 
and the like. But, the third, which is not often talked about, 
is the role that Nicaragua plays in terms of the routes that 
bring drugs, this increased production of cocaine, through 
Central America. And, for a lot of different reasons, primarily 
because they kill drug dealers, they have avoided Nicaragua. If 
there is instability there of any sort, if it compromises, 
because of an economic crisis, the ability to continue to 
enforce those mechanisms, that is an additional transit point 
that would now open up, thereby making it even easier to bring 
drugs into the United States.
    How do you view, first of all, where we are today in our 
policies? And could you describe, sort of, what you think the 
appropriate role for the U.S. is in regards to Nicaragua in the 
months to come?
    Ms. Breier. Thank you, Senator.
    This is a really important issue that, you know, is 
evolving and breaking, you know, as we sit here. I want to go 
back to something that both you and the Ranking Member 
mentioned in your opening statements, which is, by and large, 
you know, we have a tremendous opportunity in the western 
hemisphere, and we have seen an incredible amount of positive 
change over recent years. There are glaring exceptions to that, 
and the glaring exceptions are the countries that follow this 
old model, the Cuba, Venezuela, and Nicaragua, principally, 
where I think the populations in those countries have said, 
``Enough,'' that this model does not work, and it is time for a 
change. And certainly we have seen that recently with 
Nicaraguans of all stripes in the streets. We have seen 
students, we have seen business organizations, we have seen the 
church. And I think people have been struck by the diversity of 
the number of people protesting, and their backgrounds, who 
have told the Ortega Government that, ``Enough,'' and, ``It is 
time to make a change.''
    In terms of the U.S. role, clearly we are following it very 
closely. It is a priority. We announced, very recently, that we 
are withdrawing visas from some top regime officials for their 
participation in the suppression of the protests. Globe-Mag, as 
you mentioned, is something that has already been used in 
Nicaragua, and we could use again. And we will be looking at, I 
think, all of the possible tools for addressing this crisis at 
the same time as pressing the Government of Nicaragua to come 
to the table and resume dialogue, under the auspices of the 
Church and the other players, to move this toward quick 
resolution. I agree with your characterization that there is 
not a tremendous amount time and that we are looking at a 
situation where the Government needs to probably move very 
quickly to schedule elections and move the process forward.
    Senator Rubio.  And again, what I am about to say is my 
opinion. I am not representing that to the opinion of anybody 
else or the official opinion of the administration. And I am 
not asking you to opine on it. You are still not confirmed. 
But, I still think that, contrary to Venezuela, there is still 
time for Ortega and for his wife, the Vice President, to figure 
out a way to sort of call a new--real election and kind of 
transition to some form of retirement. I had opportunity, the 
last week, to meet with a--numerous students from Nicaragua. 
None of them are yet calling for them to be put in jail or them 
to be even forcibly exiled. I do think there comes a point 
where you cross a line and then that sort of opportunity is no 
longer available. And so, I hope it is an opportunity they will 
take, because I think the reverse, if something like that does 
not happen, is--there is the real potential for significant 
bloodshed. We have seen both former Sandinistas and Contras 
who--Sandinistas, who oppose Ortega, and Contras, who always 
did--who have been threatening to take up arms to rebel against 
the Government. And so, I do believe that there is the 
potential, sadly, for a much more violent open confrontation 
that--reminiscent of what we may have seen, some portions of 
the '80s. And there is a chance to still avoid it, and I hope 
they are hearing that and that there is a chance to do that.
    I wanted to ask one more question, and I actually wanted to 
ask you, Mr. George, for your input, although it takes you 
outside of Uruguay. It takes you into, sort of, some of your 
business experience. There is reports yesterday--let me just 
say that there are no U.S. oil sanctions on Venezuela. It has 
been widely speculated. The only people sanctioning the 
Venezuelan oil industry is the Maduro regime, because their 
production has declined--I mean, just collapsed. And a 
consequence of that--and they use the oil, by the way, to buy 
their influence. When people ask themselves, Why are some of 
these countries out there still voting with them at the OAS?--
not really Uruguay, for these purposes, but others--it is 
because of oil, through the agreements that they had made in 
Petrocaribe and the like. But, they announced--in the last 
couple of days, it has been brought to light that about half 
the Caribbean countries are being cut off because--they are 
being cut off of access to oil because Venezuela can no longer 
produce it. And one of them is not Cuba, by the way. They 
continue to find ways to deliver--Venezuela can--still finds 
ways to deliver humanitarian aid to Cuba after recent events 
there, but cannot deliver humanitarian aid to its own people 
and cannot produce oil for its other customers, but sure 
makes--goes a--really reaches to make sure they can continue to 
provide oil to Cuba. So, that is an interesting dynamic.
    Suffice it to say, Antigua and Barbados, Belize, Dominica, 
El Salvador, Haiti, Nicaragua--so, add to the currency crisis, 
they are going to lose access to oil--Saint Vincent, Saint 
Kitts, all are going to lose access to Petrocaribe oil, here, 
very soon, because Venezuela cannot produce it.
    My question to you, Ms. Breier, is, Is there an opportunity 
there for the United States now to engage with our private 
sector, not just to make up, sort of, the loss of energy, which 
these countries need, but ensure that no other potential 
geopolitical competitor could step in the void and try to fill 
it at our expense? Because we--there is--it seems that there 
would be an opportunity for us to leverage our U.S. capacity to 
meet that need, and also has geopolitical benefits.
    And to you, Mr. George, where--what is the--just going off 
your background in investment in oil and gas and the like, what 
are the opportunities there for American Gulf refineries to 
play a role in stepping up and potentially helping to fill that 
void? It is an unfair question. It is outside the realm of 
Uruguay, but you are here, I read your bio, and so it sounds 
like something you might be able to give us some opinions on.
    But, certainly to you, Ms. Breier, it is a--I think it is a 
key opportunity.
    Ms. Breier. Thank you, Senator. I agree with your 
characterization that the Venezuelan oil sector is collapsing 
all on its own, absent sanctions from the United States.
    I think, to get to the--where we can go in the future, in 
terms of helping Caribbean nations that may be coming off 
Venezuelan subsidized oil, this is something that the 
administration has been looking at, in cooperation with Canada 
and Mexico and our partners in the Caribbean, to see exactly 
what you suggest, what opportunities there may be to backfill 
on supplies. We also have vigorous programs in the Caribbean 
focused on energy security, looking at alternative forms of 
energy and ways that the United States, through our 
development, finance, and other tools, can assist the Caribbean 
in getting off of oil entirely and looking at other forms of 
energy supply. As you well know, the electricity costs in the 
Caribbean remain very high, so I think we have a challenge 
there, even absent the Petrocaribe situation.
    Mr. George. Senator, it is--obviously, you are right, it is 
not in my wheelhouse for the--today's discussion, but the oil 
industry is obviously something I have been involved in all my 
life. My dad was a geologist back--starting in 1945, in West 
Texas.
    Senator Rubio.  It was a good time to get into that 
business. [Laughter.]
    Mr. George. It--he was one of those, you know, returnees 
from World War II, and the--had a scholarship, due to the--you 
know, the soldiers and everything. So, it is--we wound up in 
Midland.
    The issue right now is, yes, we have revolutionized 
exploration in the world, starting in Texas, in the Barnett 
Shale, with the hydraulic fracking. I am not wanting--I do 
not--you do not want me to get into a detailed discussion about 
what is going on, but I can say the opportunity clearly exists.
    Now, the Gulf Coast, as you all are obviously very familiar 
with, those refineries positioned themselves to take heavy 
crude from the Orinoco Basin in Venezuela. A number of them. 
Not all of them, by any stretch of the imagination, but a 
significant number. As the crude falls off, as the implosion of 
the Venezuelan capacity to export, to produce, et cetera, we 
are having to--because you just cannot flip a switch and make a 
refinery change its feedstock.
    Now, the other problem in regards to responding to your 
question, because it seems very obvious that you are exactly 
right, the--but there are some logistics problems. And not to 
get into the real details, but we have a significant pipeline 
constraint. There is going to be no basin in the United States 
any bigger than the Permian Basin, out in West Texas. The 
Delaware, all those basins that are--make part of what we call, 
generically, the Permian Basin of West Texas. It is multi-
stacked, it is going to be prolific, it is going to be one of 
the largest fields in the entire world. The problem is, you 
have got to get it to the market, you have got to get it to the 
refinery. We have, now, a major constraint. The pipelines are 
full. So, when you have the current market for the product 
sales, and you have the supply, and the pipelines that connect 
the two, and you cannot just put it on a truck--I mean, you can 
physically put oil on a truck, you cannot do that with natural 
gas--and you cannot put it, necessarily, on a rail. You can put 
it on there, but there is a capacity issue. So, the ability to 
supply that need quickly is an issue that is different from, Is 
it strategically important to the United States that we do it 
eventually? And, as you well remember, we had a major 
impediment to exporting U.S. energy for a long time in this 
country. So, the ability to sell into the Caribbean has been 
constrained by other measures.
    So, your point is well taken. I know the oil industry looks 
forward to being able to create export markets for their 
product. Nothing is easier than doing it close to home, in the 
Caribbean. I think it is a tremendous opportunity. I have been 
talking about that concept in other arenas--natural gas into 
Europe, et cetera--for a long time as a strategic advantage 
that the United States needs to take advantage of. And we are 
currently not positioned well to do it.
    Senator Rubio.  Thank you.
    Ranking Member?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me start this second round on a positive note. I am 
thrilled to announce to the committee that the united bid from 
the United States, Canada, and Mexico to host the 2026 World 
Cup has achieved success. So, we are doing something together, 
hemispherically. Maybe that will be the beginning of something 
new.
    And, Mr. Chairman, we will invite you. The final will be at 
MetLife Stadium in New Jersey. So, you know, it will be a great 
moment. [Laughter.]
    Senator Rubio.  I heard it was in Montreal, but that is----
[Laughter.]
    Senator Menendez. It is MetLife Stadium in New Jersey. So.
    Anyhow, Mr. Mondello, having Congressman King here is an 
asset. It would even be a bigger asset if you were being 
nominated to Ireland, but----[Laughter.]
    Senator Menendez.--but it is still----
    Mr. Mondello [continuing]. Senator.
    Senator Menendez [continuing]. It is still an asset. 
Congressman King and I have a long history together from our 
days in the House. And bringing Mr. Zimmerman with you is a 
bipartisan effort, so I really--that means you can bring people 
together in common cause. That is a good thing.
    So, have you ever visited Trinidad and Tobago?
    Mr. Mondello. Never, Senator. I have never----
    Senator Menendez. That is not disqualifying, but my 
colleagues, when Democrats were in the majority, would ask that 
question of every nominee. So, I do not find that 
disqualifying, but it is always interesting to know.
    Let me ask you--let me just say this. I want to echo, to 
save time, the comments of questions that have been raised by 
others as it is--as it relates to getting Trinidad and Tobago 
to help us at the OAS on Venezuela. Really important. And I 
hope you will focus a significant part of your time there 
trying to get them on the right page in that regard.
    Mr. Mondello. Yes, Senator.
    Senator Menendez. They are having hundreds of people come 
from Venezuela that are now--actually, 40,000 Venezuelans are 
now living in Trinidad and Tobago, so it is an issue.
    Secondly, I want to echo what Senator Risch raised. There 
has been 100 Trinidadian citizens who have left their country 
to join the Islamic State over the last few years. And the 
possibility that trained citizens could come back to Trinidad 
and Tobago, within the western hemisphere, is a real concern. 
So, I look forward to you actively being engaged in that issue, 
as well, with the Government of Trinidad and Tobago.
    Mr. Mondello. Absolutely, Senator.
    Senator Menendez. And then, lastly, there is a report that 
the SCL Group, which is a parent company of Cambridge 
Analytica, the data company that worked on the President's 
campaign, plan to illegally acquire the Internet browsing 
histories of the citizens of Trinidad and Tobago and use it to 
create psychological profiles to target voters on behalf of a 
political party there. This is something this entity has been 
doing across the world, which we are concerned about, because 
they do it in such a way that is pervasive and undermines 
democracies. Supposedly, the Government of Trinidad and Tobago 
is now reportedly investigating the activities there. If you 
are called upon--if our Embassy is called upon, I would hope 
that you would commit to assisting them in any information that 
they would need.
    Mr. Mondello. I absolutely would be, Senator.
    Senator Menendez. All right. Thank you very much.
    Now, Mr. George, have you ever visited Uruguay?
    Mr. George. Yes, sir, numerous times, starting as long ago 
as '82----
    Senator Menendez. Okay.
    Mr. George.--1982.
    Senator Menendez. And what is the most recent time that you 
visited?
    Mr. George. About 3 years ago.
    Senator Menendez. Okay. So, I want to echo, again, OAS 
participation of Uruguay as it relates to Venezuela, very 
important to us, and I hope you will focus a good amount of 
your time on that, in getting them to be there. And in the past 
decade, as part of its Belt and Road Initiative, China has 
significantly increased its presence in Latin America. But, 
even in smaller countries, like Uruguay, China is now Uruguay's 
largest trading partner, and it has indicated its willingness 
to sign a free trade agreement. Do you see China's growing 
economic engagement in Uruguay as a threat to the United 
States? How would you plan to curb China's influence in that 
country?
    Mr. George. I do find that the--thank you, sir--I think 
that is a very important question. It is something that I have 
spoken about recently to your staff and others about my concern 
of what is going on in the country, vis-a-vis China. I think it 
is important to note that the President of Uruguay visited 
Beijing in 2016. Their Foreign Minister came--Chinese Foreign 
Minister came to Montevideo in 2017. There has been reports 
that the Government has invited President Xi to visit Uruguay 
during the G20 Summit, which, as you know, is going to be in 
Buenos Aires in November. And I would make it--I would--be a 
betting man, I would suggest that the President does not--of 
China--does not visit Uruguay without some kind of a trade deal 
or something going to happen, not just to be a tourist.
    So, I am very concerned about it. It is, as you pointed 
out, a--much to the surprise of many, that they are the largest 
trading partner with Uruguay, by a substantial margin, and even 
bigger than Brazil and Argentina, who--which you would think 
would be their natural, like ours is with Mexico and Canada. We 
are a distant fourth. I have made an observation that the 
country has wanted to be involved--expand on infrastructure 
projects. That is a--very important, but it is also important 
in many Latin American countries. They have announced the 
desire to build a railroad from the northern border of--with 
Brazil all the way to the port of Uruguay, in Montevideo. 
Unfortunately, I find, to my knowledge, from my reports that I 
have been given, there is no American company bidding on the 
project. There is several Chinese companies, one from Spain and 
one in a consortium from Uruguay itself. We are not even 
involved. And yet, they are getting ready to build--open up the 
entire central part of the country to the easy transport of 
their bountiful agricultural products, which they will then 
want to increase their sales across the world and redo their 
port.
    Now, if--that is a billion-dollar project, 800 million to a 
billion dollars. I imagine the person who gets the contract is 
also going to have to have tied financing to it. When you go 
look around the various competitors, you would think that China 
was being in a very aggressive position to take that 
responsibility.
    I understand that the focus in the western hemisphere today 
is dominated by Venezuela north. And that is reality. But, if 
you look out 25 to 35 years from now, the strategic issues 
involved in the Southern Cone will come to haunt us if we leave 
them behind today. And these are issues that, once you make 
substantial investment, and once you get the contract to manage 
the port, a port that is 125 miles further out in the Atlantic 
than Buenos Aires, strategically it can be important in the 
future. I understand, you know, even when South Command--it is 
not on their radar screen. It is on mine. And I am concerned 
about it. And I promise you that, as--if confirmed as your 
Ambassador, I am going to be in your ear about it whenever I 
can.
    Senator Menendez. Well, I am glad to hear that. And I am 
glad to hear your views on the Southern Cone. I share them.
    Let me ask you one other question. Do you speak Spanish?
    Mr. George. Is. [Replied in Spanish.]
    Senator Menendez. [Replied in Spanish.] [Laughter.]
    Senator Menendez. Let me----
    Senator Rubio.  Very impressive Portugese. [Laughter.]
    Senator Menendez. Let me just suggest to both of our 
nominees for Ambassadors, when you go the country you are in, 
have your staffs help you phonetically pronounce people's 
names. My name is Menendez, not Mendez. And so, when you go 
there, I think it is incredibly important, in terms of people's 
respect, that you are able to phonetically pronounce their 
names. So.
    Let me close with Ms. Breier. Ms. Breier, let me go back to 
the--I am going to only ask two--I have a whole bunch of 
others, but I will submit them for the record--let me go back 
to the question of the TPS. This committee, in its oversight 
role, reviewed documents regarding the State Department's 
recommendations to the then-Secretary, which noted, one, these 
countries lack the capacity to repatriate tens of thousands of 
individuals, and could not guarantee their safe return; two, in 
some cases, ending TPS designations could undermine efforts to 
address transnational crime and criminal gangs, such as MS-13; 
three, repatriating TPS beneficiaries and their accompanying 
U.S. citizen children vulnerable to--become vulnerable to 
recruitment by violent gangs.
    So, given the severe challenges that Honduras and El 
Salvador, for example, face, do you believe that individuals 
whose statuses were terminated would be able to return to safe 
conditions?
    Ms. Breier. Thank you for the question, Senator.
    The--if I am confirmed, the piece of this that I would work 
on is the programs that we have in Central America, which, as I 
mentioned earlier, I believe have the bipartisan support of 
this committee. This year, I believe we are spending roughly 
$700 million in two of the countries in question to help 
address some of these underlying conditions. We have begun to 
see the homicide rates come down, and I think we are beginning 
to see some improvements in these countries. The countries, 
themselves, in the northern triangle in particular, have 
committed funds and level of effort and political commitment 
much more than we have to this, and I think, if confirmed, my 
job will be to work with them to ensure that the conditions are 
present during these drawdown periods.
    Senator Menendez. But, surely you could not believe, as the 
nominee for the Assistant Secretary of State for the Western 
Hemisphere at this time, that, for example, the more than 
215,000 United States-born children would--who would be forced 
to accompany their TPS-beneficiary parents would be able to 
live in safe conditions right now, as we speak.
    Ms. Breier. I think, Senator, that we are prepared--the 
Department and, if I am confirmed in the role, will be prepared 
to work with these countries to ensure that we do everything 
possible, working with USAID and the countries in question, to 
ensure the conditions are safe, that the children, if they do 
return, are documented with their U.S.-
    Senator Menendez. Let us say----
    Ms. Breier.--documents----
    Senator Menendez. Let us say that we were extending TPS and 
this was not an issue. Would you tell me, under testimony 
before the committee, that those countries are safe today?
    Ms. Breier. Senator, what I would say is that, in this 
particular context, the discussion is about whether the 
conditions that justify the Temporary Protected Status continue 
to exist. And----
    Senator Menendez. Let me change my question. Listen to me 
closely. Under testimony here before this committee, do you 
believe that Honduras, El Salvador, are countries in which we 
would say that the security situation there, the safety 
situations there, are safe?
    Ms. Breier. I think, Senator, that the Department and the 
administration will do everything they can to try and improve 
the circumstances. I believe there are fundamentally--
fundamental conditions in these countries, and they are, 
indeed, fundamentally unsafe, but that we have programs in 
place to try and remedy that over the next 18 months.
    Senator Menendez. This is where nominees get in trouble. 
The reality is, is that this--these countries have some of the 
highest murder rates, not in the hemisphere, but in the world. 
That is just the reality. There is nothing wrong with stating 
that reality. It is not a trick question.
    Let me ask you one other question. On Cuba, under the Obama 
administration, the State Department raised Cuba from Tier 3 to 
Tier 2 Watch List on its annual Trafficking in Persons Report, 
something I think was totally wrong. However, there is 
widespread consensus that many Cuban doctors are forced to 
travel and work abroad in conditions that resemble indentured 
servitude. Now, I appreciate that the President has spoken 
strongly about human rights abuses in Cuba, but the country 
remains on the Tier 2 Watch List, and the most recent report 
makes little mention of this issue. Are you aware of the 
forced-labor conditions that many Cuban doctors face when they 
are conscripted to work abroad? And, if confirmed, would you 
commit to ensure robust attention to this issue in the TIP 
Report?
    Ms. Breier. Yes, on both counts, Senator.
    Senator Menendez. Okay, thank you.
    Thank you, Mr. Chairman.
    Senator Rubio.  Thank you.
    I want to thank all of you for your--being here today. And 
we look forward to continued dialogue on your nominations and 
confirmations.
    And so, the record of this hearing will remain open till 
the close of business on Friday.
    And, with that, and without objection, the hearing is 
adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to
             Joseph N. Mondello by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As a local elected official and political leader I have 
consistently worked to expand opportunities for all individuals--
regardless of race, religion, gender or sexual orientation--to fully 
participate in the political process.
    While by no means an exhaustive list, I am proud that I facilitated 
the election of the first women to serve as Hempstead Town (America's 
largest township) supervisor, councilwoman, town clerk and receiver of 
taxes. Additionally, my efforts led to the election of the first 
African-American member of this town board as well as the first 
African-American woman to serve as my party's commissioner of the 
county board of elections.
    Furthermore, in an effort to eradicate an obstacle that 
traditionally barred, or limited, women from assuming leadership roles 
in local government, I successfully established one of the first 
governmentally supported day care centers specifically for municipal 
employees.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Trinidad and Tobago? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. The most pressing challenge to democratic development in 
Trinidad and Tobago is rampant crime that diverts scarce public funds 
away from development and undermines trust in the rule of law.
    If confirmed, I would champion the Caribbean Basin Security 
Initiative that addresses these problems by substantially reducing 
illicit trafficking, increasing citizen security, and strengthening 
judicial systems, and by engaging in crime and violence prevention 
programs designed to help at-risk youth.

    Question 3. What steps will you take--if confirmed--to promote 
democracy in Trinidad and Tobago? What do you hope to accomplish 
through these actions? What are the potential impediments to addressing 
the specific obstacles you have identified?

    Answer. Trinidad and Tobago's democracy is alive and well, but we 
can and should work to preserve it. If confirmed, I will call for 
transparency in campaign finance to prevent corruption from rolling 
back gains already made by the people of Trinidad and Tobago.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The surest way to support democracy and good governance in 
Trinidad and Tobago is to fight the crime that saps the nation's 
strength. I understand Embassy Port of Spain already uses resources 
from the Caribbean Basin Security Initiative to administer programs 
designed to prevent crime and violence by creating economic 
opportunities for at-risk youth. I also understand that the 
International Visitor Leadership Program is an ideal tool for 
developing future Trinbagonian leadership. If confirmed, I will 
champion these programs to preserve democracy in Trinidad and Tobago.

    Question 5. If confirmed, will you meet with civil society members, 
human rights and other non-governmental organizations in the U.S. and 
with local human rights NGOs, and other members of civil society in 
Trinidad and Tobago? What steps will you take to proactively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. I am eager to engage with civil society members and human 
rights and other non-governmental organizations in the United States as 
well as Trinidad and Tobago. If confirmed, I will use the U.S. Embassy 
as a platform to amplify the important messages on human rights and 
civil society contained in our annual human rights report.

    Question 6. Will you, your staff, and embassy teams actively engage 
within Trinidad and Tobago on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Trinidad and Tobago?

    Answer. If confirmed, we will absolutely do this, and I understand 
that Trinbagonians will welcome such outreach. I'm told that Trinidad 
and Tobago hosts dynamic and diverse media with more than a dozen radio 
stations, three major daily newspapers, and five major TV stations. The 
constitution guarantees freedom of the press and the Government 
respects that.

    Question 7. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will lead the embassy team in efforts to 
counter disinformation in close coordination with the State Department 
in Washington. I understand that Embassy Port of Spain already has 
excellent contacts in government and society to ensure the U.S. 
perspective is heard. I intend to use the U.S. Embassy's popular 
Facebook page and Twitter accounts to further counter any 
disinformation disseminated by foreign state or non-state actors.

    Question 8. Will you, your staff and your embassy teams actively 
engage within Trinidad and Tobago on the right of labor groups to 
organize, including for independent trade unions? Will you and your 
embassy team engage political parties, and advocate for access and 
inclusivity for women and minorities?

    Answer. I understand from the annual human rights report that 
Trinbagonian authorities generally respected freedom of association and 
the right to collective bargaining. Authorities did not use excessive 
force to end strikes or protests or otherwise retaliate against workers 
seeking to exercise their rights.
    If confirmed, I will call for the equal inclusion of women and 
minorities.

    Question 9. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Trinidad and 
Tobago, no matter their sexual orientation or gender identity? What 
challenges do the lesbian, gay, bisexual, transgender and queer (LGBTQ) 
people face in Trinidad and Tobago? What specifically will you commit 
to do to help LGBTQ people in Trinidad and Tobago?

    Answer. If confirmed, I will defend the human rights and dignity of 
all people in Trinidad and Tobago, no matter their sexual orientation 
or gender identity. I understand that Trinidad and Tobago is a tolerant 
society and I commit to use the U.S. Embassy as a platform to exhibit 
tolerance for all.


                               __________


     Responses to Additional Questions for the Record Submitted to 
            Joseph N. Mondello by Senator Benjamin L. Cardin

    Question 1. In February 2010, Stan Hunkovic's children, Gabriel and 
Anastasia, were unlawfully taken from their habitual residence in the 
United States to Trinidad and Tobago by their mother, Leah Raymond. Mr. 
Hunkovic is a resident of Baltimore County, Maryland. Despite his best 
efforts, Mr. Hunkovic's children are still living in Trinidad and 
Tobago. I am disappointed to hear Trinidad and Tobago has denied the 
Department of Justice's extradition request for Ms. Raymond. As the 
U.S. Ambassador to Trinidad and Tobago, will you work to request the 
safe return of Gabriel and Anastasia as well as continue to press the 
extradition of Ms. Raymond so she may face charges in court?

    Answer. Yes. If confirmed, I will do all that I can to press for 
the resolution of this case.

    Question 2. In February 2010, Stan Hunkovic's children, Gabriel and 
Anastasia, were unlawfully taken from their habitual residence in the 
United States to Trinidad and Tobago by their mother, Leah Raymond. Mr. 
Hunkovic is a resident of Baltimore County, Maryland. Despite his best 
efforts, Mr. Hunkovic's children are still living in Trinidad and 
Tobago. I am disappointed to hear Trinidad and Tobago has denied the 
Department of Justice's extradition request for Ms. Raymond. What, 
specifically, will you do to press for Ms. Raymond's extradition?

    Answer. It is my understanding that the U.S. Embassy in Port of 
Spain has excellent relationships with individuals and entities within 
the Government of Trinidad and Tobago, including with the attorney 
general, and, if confirmed, I will work to maintain and enhance those 
relationships in order to continue to support Mr. Hunkovic's case. Mr. 
Hunkovic and his U.S. attorney may consider whether to consult with 
local counsel in Trinidad and Tobago and/or participate in local 
proceedings. It is also my understanding that the Government of 
Trinidad and Tobago has already denied the United States' request for 
the extradition of Ms. Raymond. Further, I am informed that the United 
States request for reconsideration of the extradition request was also 
denied earlier this year, and that denial of the request for 
reconsideration of the extradition is final.

    Question 3. According to UNHCR, over 40,000 Venezuelan refugees 
were in Trinidad and Tobago in 2017, and that number is expected to 
grow as Venezuela falls deeper into its economic and political crises. 
Do you believe Trinidad has the adequate infrastructure and resources 
to provide for these refugees?

    Answer. I understand the United Nations High Commissioner for 
Refugees (UNHCR) reports more than 40,000 Venezuelans have fled to 
Trinidad and Tobago, straining local government capacity. The 
Trinidadian Government has registered 200 asylum applications and found 
that 92 percent qualified as refugees under the 1951 Convention. UNHCR 
assesses that none of the southern Caribbean nations are prepared to 
receive more Venezuelans, and the U.N. agency is working with the 
Caribbean Community (CARICOM) on capacity building for a potential mass 
migration event in the Caribbean.
    I understand the United States contributed $12 million to UNHCR's 
Supplementary Appeal for Venezuela, of which $2 million will assist 
with access to adequate reception conditions, registration and 
documentation for asylum-seekers, and services such as shelter, health, 
and education in Trinidad and Tobago.

    Question 4. According to UNHCR, over 40,000 Venezuelan refugees 
were in Trinidad and Tobago in 2017, and that number is expected to 
grow as Venezuela falls deeper into its economic and political crises. 
Should the United States better assist Trinidad in bearing this refugee 
burden?

    Answer. I understand that the United States, and the State 
Department in particular, has been responsive to the burgeoning crisis 
since the beginning. This includes substantial humanitarian funding 
specifically to assist Venezuelans who have fled their country. Most 
recently, I understand the United States contributed $12 million to 
UNHCR's supplementary appeal for Venezuela, of which $2 million will 
assist with access to adequate reception conditions, registration and 
documentation for asylum-seekers, and services such as shelter, health, 
and education in Trinidad and Tobago. If confirmed, I will coordinate 
closely with colleagues at the Department of State and other agencies 
to help Trinidad and Tobago cope with a possible humanitarian crisis.

    Question 5. According to Admiral Kurt Tidd, Commander of SOUTHCOM, 
ISIS has increased its recruitment of fighters from Trinidad and Tobago 
in recent years. The United States provides extensive security 
assistance to Trinidad and Tobago through International Military 
Education and Training (IMET) training programs and DOD's Train and 
Equip programs. Do you believe these programs have been effective in 
strengthening Trinidad and Tobago's security apparatus?

    Answer. I believe the effectiveness of U.S. IMET programs and the 
Department of Defense (DoD) train and equip program was evident through 
the performance of Trinbagonian security forces during the Fused 
Response exercise. Trinidad and Tobago hosted defense, interagency, and 
law enforcement partners from the United States for Fused Response 
April 16-26. That was the first time Trinidad and Tobago hosted this 
annual crisis response exercise. Fused Response had multilateral 
components that provided the opportunity for participating countries to 
work collaboratively with security partners in the region, strengthened 
longstanding ties, and enhanced interoperability between nations. My 
understanding is that the Department's ongoing IMET, Foreign Military 
Finance program, and Department of Defense programs prepared 
Trinbagonian security forces well for that exercise. If confirmed I 
will continue to help Trinidad and Tobago develop as effective security 
partners.

    Question 6. According to Admiral Kurt Tidd, Commander of SOUTHCOM, 
ISIS has increased its recruitment of fighters from Trinidad and Tobago 
in recent years. The United States provides extensive security 
assistance to Trinidad and Tobago through International Military 
Education and Training (IMET) training programs and DOD's Train and 
Equip programs. What more should Trinidad and the United States be 
doing to prevent the rise of violent extremism in the region?

    Answer. I understand that there are existing programs designed to 
address the full spectrum of challenges in order to counter violent 
extremism, including countering extremist messaging, developing 
Trinbagonian capacity to apprehend and prosecute extremists. 
Additionally, in 2017 Trinidad and Tobago agreed to participate in the 
U.S. Government's Personal Identification Secure Comparison and 
Evaluation System (PISCES) to screen traveler biometric and biographic 
data to detect terrorists. I understand implementation is ongoing.If 
confirmed, I would seek to work with my team at Post as well as the 
State Department and other agencies to continue to further these 
important efforts.

    Question 7. According to the State Department Trafficking in 
Persons (TIP) report ranking, Trinidad and Tobago is a Tier 2 country, 
serving as a destination, transit, and source country for adults and 
children into sex trafficking and forced labor. Many of the trafficked 
women in Trinidad are from Venezuela, the Dominican Republic, and 
Colombia. While Trinidad works to eliminate trafficking, what should 
the United States be doing to support anti-trafficking efforts in 
Trinidad and Tobago?

    Answer. From the annual Trafficking in Persons (TIP) report, I 
understand that Trinidad and Tobago demonstrated increasing efforts 
compared to the previous reporting period but has yet to secure a 
conviction under its anti-trafficking law. I believe the U.S. needs to 
work very closely with appropriate authorities in Trinidad and Tobago 
to ensure they have the legal infrastructure necessary to prosecute TIP 
cases. I am also concerned about the lack of specialized services, 
including during legal proceedings, for victims of trafficking, as 
reported in the TIP report. If confirmed, I will coordinate closely 
with colleagues at the State Department and other agencies to determine 
which resources can be brought to bear to develop these missing 
capacities in Trinidad and Tobago.

    Question 8. According to the State Department Trafficking in 
Persons (TIP) report ranking, Trinidad and Tobago is a Tier 2 country, 
serving as a destination, transit, and source country for adults and 
children into sex trafficking and forced labor. Many of the trafficked 
women in Trinidad are from Venezuela, the Dominican Republic, and 
Colombia. Will you use your position as Ambassador to prioritize 
trafficking with Trinidadian officials?

    Answer. Absolutely. The scourge of modern day slavery appalls me. 
If confirmed, I commit to working with Trinidadian officials to fight 
trafficking in persons in Trinidad and Tobago.

    Question 9. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a local elected official and political leader I have 
consistently worked to expand opportunities for all individuals--
regardless of race, religion, gender or sexual orientation--to fully 
participate in the political process.
    While by no means an exhaustive list, I am proud that I facilitated 
the election of the first women to serve as Hempstead Town (America's 
largest township) supervisor, councilwoman, town clerk and receiver of 
taxes. Additionally, my efforts led to the election of the first 
African-American member of this town board as well as the first 
African-American woman to serve as my party's commissioner of the 
county board of elections.
    Furthermore, in an effort to eradicate an obstacle that 
traditionally barred, or limited, women from assuming leadership roles 
in local government, I successfully established one of the first 
governmentally supported day care centers specifically for municipal 
employees.

    Question 10. What are the most pressing human rights issues in 
Trinidad and Tobago? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in Trinidad 
and Tobago? What do you hope to accomplish through these actions?

    Answer. The most significant human rights issues in Trinidad and 
Tobago include mistreatment of detainees by police and prison 
officials, refoulement of refugees due to poor training of officials, 
official corruption, and gender based violence.
    If confirmed, I would champion existing embassy programs designed 
to address these and other human rights issues. In particular, I would 
use my convening authority, as U.S. Ambassador, to speak directly to 
local leaders at all levels of society to affect positive change on 
these pressing human rights concerns.

    Question 11. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Trinidad and Tobago 
in advancing human rights, civil society and democracy in general?

    Answer. Domestic crime and an overburdened judicial system are the 
biggest obstacles to progress on human rights in Trinidad and Tobago. 
If confirmed, I would press the Trinidad and Tobago Governments to 
implement the rule of law while respecting human rights in a high crime 
environment with limited resources.
    If confirmed, I will work with my embassy staff to accelerate 
existing programs through which we train criminal justice officials and 
call for wider application of alternative dispute resolution to help 
reduce the backlog within the court system.

    Question 12. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Trinidad and Tobago? If confirmed, what 
steps will you take to proactively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. I am absolutely committed to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and in Trinidad and Tobago, and will eagerly do so if confirmed.
    Additionally, if confirmed, I will support the Leahy Law through 
strict compliance with required vetting procedures that I understand 
are already in place in Embassy Port of Spain. The Leahy Law is a 
powerful tool for ensuring that human rights violators do not abuse 
security assistance from the United States.

    Question 13. Will you and your embassy team actively engage with 
Trinidad and Tobago to address cases of key political prisoners or 
persons otherwise unjustly targeted by Trinidad and Tobago?

    Answer. While there are no known cases of current political 
prisoners in Trinidad and Tobago, the human rights report does describe 
at least one instance in which an individual may have been targeted 
unjustly by a law enforcement official.
    If confirmed, I will continue the proud tradition of U.S. diplomats 
speaking out on behalf of those who are denied a voice.

    Question 14. Will you engage with Trinidad and Tobago on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes, if confirmed, I will insist that the embassy keep 
human rights, civil rights, and governance on the top of the bilateral 
agenda.

    Question 15. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 16. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 17. Do you or do any members of your immediate family have 
any financial interests in Trinidad and Tobago?

    Answer. No.

    Question 18. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Our country's greatest strength is the extraordinary 
diversity of its citizenry. In order to best serve our nation's 
interests abroad each member of our Foreign Service, particularly those 
from previously underrepresented groups, must be provided with the 
support and encouragement necessary to excel. If confirmed as head of 
mission, it would be my responsibility to ensure that all staff members 
are energized and motivated to achieve their fullest potential. This is 
best achieved by creating a cohesive team of staff members that 
functions in an atmosphere of mutual respect and understanding.

    Question 19. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Active, hands-on oversight of Embassy supervisors is the 
best approach to ensuring that all staff members are provided with a 
working environment that is diverse and inclusive. If confirmed as head 
of mission, I would meet regularly with supervisory staff to set clear 
goals and requirements in this regard. I would establish procedures 
designed to ensure that all staff members understand what is 
individually required of them in order to secure a diverse and 
inclusive workplace. I would also be readily accessible to any staff 
member who has comments or concerns relative to these issues.



                               __________


    Response to an Additional Question for the Record Submitted to 
                 Kimberly Breier by Senator Bob Corker

    Question 1. There is concern that the Government of Peru has thus 
far been unable to resolve the claims of many of our constituents who 
have invested in Peruvian Agrarian Reform bonds, commonly known as 
``land bonds.'' These constituents are hard working men and women, 
often in blue collar jobs, who have invested via their pension funds, 
which are already facing considerable financial strain. Though the 
former President of Peru Pedro Pablo Kuczynski assured several Members 
of Congress last year that he would meet with the U.S. bondholders, to 
date the Government has refused to do so. If confirmed as the next 
Assistant Secretary of State for the Western Hemisphere, will you 
commit to working with the Peruvian Government to achieve a final 
resolution to this issue? What steps can the Department of State take 
to encourage Peru to fulfill its obligations to U.S. citizens on these 
notes?

    Answer. Yes, if confirmed, I will work with the bondholders and the 
Peruvian Government to facilitate an amicable and expeditious 
resolution on this issue. Officials at the Department of State and at 
our Embassy in Lima have met with representatives of current holders of 
the bonds (which were first issued by Peruvian military governments 
between 1969 and 1979) on multiple occasions, and, if confirmed, I will 
ensure that our door will continue to be open to them. If confirmed, I 
will also continue our dialogue with the Peruvian Government on this 
issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Kimberly Breier by Senator Robert Menendez

    Question 1. In the past week, the President and his senior aides 
have publicly criticized Canadian Prime Minister Justin Trudeau. These 
comments come months after the President openly boasted about lying to 
Prime Minister Trudeau. Do you believe that the President's comments 
help advance U.S. national interests?

    Answer. The United States' relationship with Canada is one of the 
most important bilateral relationships we have in the world. It is 
vibrant and enduring; from our deep cultural connections to significant 
economic interactions and defense cooperation. Historically, we have 
gone through contentious periods in our bilateral relationship before 
and our partnership emerged stronger. If confirmed, I will focus my and 
the Bureau's efforts on ensuring we maintain the deep and collaborative 
bilateral relationship with Canada.

    Question 2. In the past week, the President and his senior aides 
have publicly criticized Canadian Prime Minister Justin Trudeau. These 
comments come months after the President openly boasted about lying to 
Prime Minister Trudeau. What is the impact of the President's comments 
on efforts to renegotiate NAFTA?

    Answer. The United States and Canada remain close partners and 
share a wide variety of common interests. Our relationship with our 
neighbor has withstood tests before and it will withstand them now. 
NAFTA discussions continue to take place between all three parties. If 
confirmed, I will support our efforts in the NAFTA re-negotiation 
process that seeks to rebalance and upgrade our agreement.

    Question 3. Recent testing by North Korea has revealed its ability 
to strike parts of North America with a missile, possibly one equipped 
with a nuclear warhead. While the United States and Canada closely 
cooperate through North American Aerospace Defense Command (NORAD) 
against threats in the air domain including from cruise missiles, 
Canada has declined to participate in the United States' ballistic 
missile defense program. Would Canadian participation in our Ground-
Based Midcourse Defense (GMD) system assist our efforts to defend the 
U.S. homeland from missile threats from North Korea and Iran?

    Answer. Respectfully, I must refer you to the Department of Defense 
for questions on specific military capabilities.

    Question 4. Could the current missile defense system defend major 
Canadian population centers from the ballistic missile threat from 
North Korea?

    Answer. Respectfully, I must refer you to the Department of Defense 
for questions on specific military capabilities.

    Question 5. If confirmed, in your discussions with the Government 
of Canada, how would your prioritize securing Canadian participation in 
the defense of North America from the fully spectrum of aerospace 
threats we jointly face?

    Answer. U.S. bilateral cooperation in the North American Radar 
Defense (NORAD) program is a cornerstone of the defense of the homeland 
and emblematic of our deep cooperation with Canada. Like the United 
States, Canada has prioritized modernizing NORAD to meet all threats to 
our two counties. If confirmed, I will prioritize coordination with the 
Department of Defense, Global Affairs Canada, and the Canadian 
Department of National Defence to ensure all of North America remains 
safe.

    Question 6. As our principal diplomat for the Americas, do you 
intend to formulate a strategy to make Mexico pay for a border wall 
between our countries?

    Answer. No, but I am committed to helping secure our borders. The 
United States and Mexico work together to stop the flow of drugs and 
other contraband that travel in both directions across our shared 
border. We also work together to improve efficiencies at ports of entry 
to ensure the legitimate flow of commerce and travelers. Border 
infrastructure is an integral part of border security. Mexico has 
consistently stated it will not pay for a border wall.

    Question 7. The President's repeated and public criticism of Mexico 
and the Mexican people continue to raise the political cost for Mexican 
authorities that cooperate with the United States on issues including 
securing our border, addressing unauthorized migration, or addressing 
challenges related to narcotics trafficking, which are contributing to 
the heroin and fentanyl epidemic plaguing our country.
    What is the impact of the President's comments on efforts to 
renegotiate NAFTA?

    Answer. The United States and Mexico remain close partners and 
share a wide variety of common interests. The relationship with our 
neighbor has withstood tests before and it will withstand them now. 
NAFTA discussions continue to take place between all three parties. If 
confirmed, I will support our efforts in the NAFTA re-negotiation 
process to rebalance and upgrade our agreement.

    Question 8. Do you believe that the United States can address 
border security, migration, and drug trafficking without a productive 
partnership with Mexican authorities?

    Answer. Mexican cooperation is vital to U.S. national security and, 
if confirmed, I will ensure the Department of State continues to work 
with Mexico through the Merida Initiative on issues of border security, 
migration, and counternarcotics. The administration works with Mexico 
to disrupt transnational criminal organizations, combat the heroin and 
fentanyl epidemics, enhance border security to address irregular 
migration and trafficking in illicit goods, and build Mexico's capacity 
to investigate and prosecute crime. Our cooperation strengthens Mexican 
institutions and the rule of law and promotes strong partners who can 
work with U.S. law enforcement agencies.

    Question 9. What, in your view, would be the impact on our national 
security should Mexico choose to withdraw from cooperating with the 
United States?

    Answer. U.S.-Mexico cooperation is important for U.S. national 
security and benefits both our nations. If confirmed, I will work with 
Mexico to maintain positive bilateral engagement. This would include 
collaborating with Mexico to disrupt transnational criminal 
organizations, combat the heroin-fentanyl epidemic, enhance border 
security to address irregular migration and trafficking in illicit 
goods, and build Mexico's capacity to investigate and prosecute crime. 
Our cooperation strengthens Mexican institutions and the rule of law, 
and promotes strong communities to deter recruitment by transnational 
criminal organizations. These ongoing efforts also directly enhance U.S 
security.

    Question 10. Do you believe the President's comments make it easier 
or more difficult to build a collaborative relationship (with Mexico)?

    Answer. The United States enjoys excellent cooperation with Mexico 
on a broad range of political, security, migration, and economic 
issues. Strong institutional relationships help to ensure cooperation 
continues even when our leaders disagree. Mexico is an important 
partner in combatting irregular migration, narcotics trafficking, and 
transnational criminal organizations. If confirmed, preserving and 
enhancing bilateral cooperation with Mexico will be a top priority for 
me.

    Question 11. In your new role, how can you possibly try to recover 
so much lost ground with such an important partner?

    Answer. Bilateral cooperation with Mexico is essential and, if 
confirmed, I will ensure the Department of State continues to work 
closely with Mexico on issues of security, counternarcotics, and 
prosperity. The United States' collaboration with Mexico to jointly 
disrupt transnational criminal organizations, combat the heroin and 
fentanyl epidemics, enhance border security, address irregular 
migration, and build Mexico's capacity to investigate and prosecute 
crime are critical to both our nations.

    Question 12. If confirmed, how will you prioritize the United 
States international efforts to combat illicit heroin and fentanyl 
trafficking?

    Answer. I believe that effectively responding to the opioid crisis 
by driving down the number of overdose deaths in the United States 
requires a global response. It is my understanding that the vast 
majority of illicit opioids, like heroin and fentanyl, come from 
overseas. I also understand that Mexican transnational criminal 
organizations produce over 90 percent of heroin found in the U.S. 
market, while synthetic opioids often purchased online from China, are 
shipped in small quantities through the mail and express consignment 
services, to the United States, Mexico, and Canada.
    f confirmed, I will continue to work with the U.S. counterdrug 
community and focus capacity building in partner countries and 
diplomatic engagement on efforts to prevent the flow of illicit heroin 
and fentanyl to the United States. If confirmed, I will continue to 
support efforts to attack these supplies and trafficking methods by 
working bilaterally with Mexico and China, trilaterally through the 
North American Drug Dialogue, and multilaterally, though the 
Organization of American States, United Nations Office of Drugs and 
Crime (UNODC) and other fora, to control illicit production and 
distribution.
    I understand that our security cooperation with Mexico is excellent 
and the Department is working through the Strategic Dialogue on 
Disrupting Transnational Criminal Organizations, to combat the 
organizations that produce and traffic heroin to the United States. I 
believe this process must continue and that we should assist Mexico's 
efforts to build its capacity to eradicate poppy, dismantle clandestine 
labs, enhance border security, and bring criminals to justice.

    Question 13. What is your assessment of the importance of the 
U.S.--Mexico cooperation to address illicit heroin and fentanyl 
trafficking and transnational organized crime?

    Answer. Mexican cooperation is vital to U.S. national security and 
the Department of State is committed to our deep bilateral security 
partnership with Mexico. Neither country can successfully confront 
transnational organized crime or the scourge of illicit drugs alone. If 
confirmed, I will continue our work with Mexico and U.S. assistance 
through the Merida Initiative to disrupt transnational criminal 
organizations, combat the heroin-fentanyl epidemic, enhance border 
security against illegal migration and trafficking in illicit goods, 
and build Mexico's capacity to investigate and prosecute crime.

    Question 14. Do you think the U.S. can address heroin and fentanyl 
trafficking without Mexico's cooperation?

    Answer. Mexican cooperation is vital to U.S. national security and 
the Department of State is committed to our deep bilateral security 
partnership with Mexico. Neither country can successfully confront 
transnational organized crime or the scourge of illicit drugs alone. 
Our governments remain dedicated to implementing projects through the 
Merida Initiative that target the entire business model of 
transnational criminal organizations, including the illicit drug trade. 
These projects will expand Mexico's capacity to more effectively target 
and eradicate opium poppy fields; identify, safely dismantle, and 
investigate clandestine drug laboratories; interdict and destroy drugs; 
and track chemical precursors to prevent diversion to illicit drug 
production. If confirmed, I will continue this important work.

    Question 15. At a time when the political relationship between the 
U.S. and Mexico is under increasing duress due to the President's 
antagonistic statements, how will you work to sustain and build the 
cooperation necessary to combat illicit trafficking and transnational 
organized crime?

    Answer. Mexican cooperation is vital to U.S. national security and, 
if confirmed, I will ensure the Department of State continues to work 
with Mexico on issues of security, counternarcotics, and prosperity. 
The administration works with Mexico to disrupt transnational criminal 
organizations; combat the heroin-fentanyl epidemic; enhance border 
security to address irregular migration and trafficking in illicit 
goods; and build Mexico's capacity to investigate and prosecute crime. 
Our assistance strengthens Mexican institutions and the rule of law, 
and promotes strong partners for U.S. law enforcement agencies.

    Question 16. What is your assessment of corruption in the federal 
government of Mexico?

    Answer. Corruption is a universal challenge and Mexico is no 
exception to the rule. The Department of State supports Mexico's 
efforts to fight corruption and build good governance at the federal 
level. Mexico has undertaken an historic transition to an oral 
accusatory justice system that will provide greater transparency, 
accountability and efficiency in the administration of justice. I 
believe these are essential elements for the success of every nation. 
If confirmed, I will support U.S. anti-corruption efforts in Mexico.

    Question 17. What is your assessment of corruption in state 
governments in Mexico?

    Answer. State governments in Mexico formally transitioned to an 
open, accusatorial justice system in June 2016. Consolidation of the 
new system to hold those who commit crimes accountable--including for 
corruption--will not be easy. It will take a long-term effort, as well 
as sustained political will, at both the state and federal levels. 
Mexico is taking steps to investigate and prosecute former state 
government officials. If confirmed, I will support these efforts to 
help Mexico fight corruption.

    Question 18. What is your assessment of corruption in the main 
political parties in Mexico?

    Answer. Mexican voters have repeatedly cited corruption as a major 
concern, according to recent polls in the run up to July 1 national 
elections. All of the candidates of the major parties have addressed 
this as a campaign issue and have pledged to combat corruption. U.S. 
assistance to Mexico helps promote transparency and the rule of law. If 
confirmed, I will support these anti-corruption efforts.

    Question 19. What is your assessment of reports that Mexico's 
Procuradur!a General de la Rep#blica (PGR) suppressed a legal 
investigation into corruption between the Government of Mexico and 
Brazilian oil company Odebrecht, as reported by the New York Times on 
June 11, 2018?

    Answer. I am aware of the press report. My understanding is that 
Mexico's Attorney General is conducting an active investigation into 
the matter. I am committed to advancing our comprehensive efforts to 
combat corruption in Mexico and throughout the Western Hemisphere. If 
confirmed, I will continue to work with our partners in Mexico to 
strengthen the rule of law and independent judiciary sectors.

    Question 20. Please describe your role in accompanying White House 
Senior Adviser Jared Kushner to a meeting with Mexican Foreign 
Secretary Luis Videgaray in Mexico City on March 8, 2018?

    Answer. I attended meetings with the U.S. Ambassador, Embassy 
staff, NSC staff, the Senior Advisor, and Mexican officials.

    Question 21. Why was U.S. Ambassador to Mexico, Roberta Jacobson, 
not invited to attend your meeting with Foreign Secretary Videgaray on 
March 8, 2018?

    Answer. The agenda and meetings were arranged by the National 
Security Council and the Government of Mexico. The National Security 
Council and the White House invited me to join in the trip of the 
Senior Advisor but did not consult me on the composition of the 
meetings. I have known Ambassador Jacobson for more than fifteen years 
and hold her in the highest regard and have regularly sought her 
counsel in my work. If confirmed, I commit to ensuring that U.S. 
Ambassadors are included in future such meetings.

    Question 22. In your role as Senior Adviser for the Western 
Hemisphere in the State Department's Office of Policy Planning, how 
many times and on what dates did travel to Mexico prior to your trip on 
March 8, 2018?

    Answer. The bilateral relationship with Mexico is one of the most 
important and unique relationships that the United States has in the 
world. It is also an area of my expertise, developed over many years in 
public service and the private sector. As such, I travelled to Mexico 
on two occasions prior to March 2018 as a Member of the Policy Planning 
Staff. In January 2018, I travelled with an inter-agency delegation to 
discuss various areas of the bilateral relationship and how we might 
advance efforts to address shared opportunities and challenges. In 
November 2017 I travelled to Mexico for meetings and briefings with the 
U.S. Ambassador, DCM, Embassy section heads, and Mexican officials.

    Question 23. What is your understanding of the status of the 
Section 232 investigation into the national security implications of 
imports of automobiles and automotive parts?

    Answer. I understand the Secretary of Commerce initiated an 
investigation to consider the national security effects of imported 
automobiles, trucks, and automotive parts on May 23. If confirmed, I 
will ensure the Bureau of Western Hemisphere Affairs contributes to 
State Department and interagency discussions involving this 
investigation.

    Question 24. Are you aware of any evidence that suggests imports of 
automobiles or automobile parts from Canada or Mexico present national 
security risks for the United States?

    Answer. It is important to note that U.S. national security 
includes elements of economic security. I am aware that automobile 
manufacturing has long been a significant source of American 
technological innovation. I also understand U.S. imports of passenger 
vehicles have grown significantly in recent years while U.S. employment 
in motor vehicle production and the U.S. share of global research and 
development in the automobile sector have declined.

    Question 25. Do you believe our treaty relationships should be 
considered when determining which countries should be subject to import 
restrictions as a result of a Section 232 investigations?

    Answer. My understanding is that according to U.S. law, our treaty 
and free trade agreement partners are not exempt from any Section 232 
investigations or actions. If confirmed, I will support any trade-
related investigations in accordance with U.S. law.

    Question 26. Do you believe Congress should have a greater role in 
the oversight and review of Section 232 investigations and any 
resulting import adjustments?

    Answer. Checks and balances on all branches of government are 
fundamental to any actions taken by the U.S. Government. If confirmed, 
I will support the administration's trade-related investigations in 
accordance with U.S. law.

    Question 27. Do you believe that Canadian steel and aluminum 
constitute a threat to U.S. national security?

    Answer. It is important to note that U.S. national security 
includes elements of economic security and global overproduction has 
impaired the U.S. steel and aluminum industries. The application of the 
steel and aluminum tariffs does not foreclose the possibility of 
arriving at an alternative agreement with Canada to exempt it in the 
future. If confirmed, I will work with our trade partners to address 
global excess production of steel and aluminum.

    Question 28. Do you believe Mexican steel and aluminum constitute a 
threat to U.S. national security?

    Answer. It is important to note that U.S. national security 
includes elements of economic security and global overproduction has 
impaired the U.S. steel and aluminum industries. The application of the 
steel and aluminum tariffs does not foreclose the possibility of 
arriving at an alternative agreement with Mexico to exempt it in the 
future. If confirmed, I will work with our trade partners to address 
global excess production of steel and aluminum.

    Question 29. Will you commit to us that, if confirmed, any 
recommendations you give regarding the TIP Report will be based solely 
on a country's efforts to combat trafficking, and not trade or other 
unrelated factors?

    Answer. If confirmed, I will ensure that any tier recommendations 
for the TIP Report, as well as any waiver considerations that may be 
applicable, are in compliance with the law.

    Question 30. If confirmed, do you commit to supporting U.S. efforts 
to address the security, stability, and prosperity of the Northern 
Triangle in Central America?

    Answer. If confirmed, I commit to supporting U.S. Government 
assistance in the region and furthering our diplomatic engagement with 
our Central American partners. U.S. programs and engagement aim to 
secure U.S. borders and protect U.S. citizens by addressing the 
security, governance, and economic drivers of illegal immigration and 
illicit trafficking through the U.S. Strategy for Central America by 
enhancing regional economic opportunity, reducing insecurity and 
violence, and fighting impunity and corruption. Our assistance 
complements the more than $2.5 billion that Northern Triangle countries 
themselves are investing to address these goals.

    Question 31. How do you plan to work with the countries of the 
Northern Triangle to address the problems of violence, poverty and weak 
security and justice institutions driving children and families from 
their countries?

    Answer. If confirmed, I plan to advance our partnership with the 
Northern Triangle governments of El Salvador, Guatemala, and Honduras 
and continue to advance U.S. programs and assistance that complement 
the Northern Triangle's Plan for the Alliance for Prosperity (A4P). I 
understand the A4P is a Northern Triangle government initiative 
designed to stimulate the productive sector, develop opportunities for 
their people, improve public safety, enhance access to the legal 
system, and strengthen institutions. U.S. assistance supports these 
goals.
    If confirmed, I will also continue to implement U.S. efforts that 
support the Northern Triangle governments' progress and reforms needed 
to advance the goals outlined in the A4P to improve the business 
climate, increase tax revenues, facilitate trade, expand energy 
integration, strengthen public-private sector dialogue, combat 
organized crime, promote citizen security, improve information sharing, 
cooperate on migration flows, continue the security dialogue, 
strengthen border security, and reduce violence.

    Question 32. Will you engage with the Governments of Honduras and 
El Salvador to support fair and impartial attorney general selection 
processes to emphasize the need to select of honest and qualified 
candidates with a clear commitment to the rule of law?

    Answer. If confirmed, I will engage with the Governments of 
Honduras and El Salvador to emphasize the importance of supporting 
fair, transparent, and impartial attorney general selection processes. 
I will underscore the importance of selecting honest and highly-
qualified candidates with a strong commitment to the rule of law and 
the fight against corruption and impunity.

    Question 33. Will you commit to maintaining continued U.S. 
political and financial support for United Nations International 
Commission against Impunity in Guatemala (CICIG) and the Organization 
of American States Support Mission against Corruption and Impunity in 
Honduras (MACCIH)?

    Answer. Anti-corruption efforts in Guatemala and Honduras will be a 
priority for me, if confirmed. The United States provides funding to 
International Commission against Impunity in Guatemala (CICIG) for its 
important mission to combat corruption and impunity and strengthen 
Guatemala's justice sector. The Department, USAID, and the U.S. Mission 
to the United Nations (USUN) have met to discuss options for ensuring 
oversight and reform of CICIG that can strengthen the commission and 
preserve its important, independent mandate, and I understand these 
will be presented to Secretary Pompeo. Similarly, the United States 
supports the Organization of American States (OAS) Mission Against 
Corruption and Impunity in Honduras (MACCIH) which also plays a vital 
role in supporting the work of the attorney general in Honduras to 
strengthen the rule of law, fight impunity, and combat corruption, 
including the corrupt networks linked to transnational criminal 
organizations in the region.

    Question 34. How would you support and strengthen the efforts of 
CICIG and MACCIH, and how would you help ensure the full cooperation of 
the Guatemalan and Honduran Governments?

    Answer. The United States provides funding to International 
Commission against Impunity in Guatemala (CICIG) and the Organization 
of American States (OAS) Mission Against Corruption and Impunity in 
Honduras (MACCIH) to support their important missions to combat 
corruption and impunity and strengthen the justice sector in both 
countries. The Department, USAID, and the U.S. Mission to the United 
Nations (USUN) have met to discuss options for ensuring oversight and 
reform of CICIG that can strengthen the commission and preserve its 
important, independent mandate, and I understand these will be 
presented to Secretary Pompeo.
    If confirmed, I look forward to engaging Guatemala's new attorney 
general Mar!a Consuelo Porras Arqueta to continue her government's 
efforts against corruption and support for CICIG's mission. A strong 
attorney general is an integral part of the fight against corruption, 
impunity, and transnational criminal organizations. Corruption and 
impunity enable illicit networks and affect the ability of U.S. 
companies to do business in Guatemala. Measurable progress on 
combatting transnational criminal organizations requires significant 
progress in combatting corruption.
    I would continue to urge the Government of Honduras to approve a 
new head of MACCIH as soon as possible to ensure its important work 
continues and that it has sufficient access to information to support 
Public Ministry investigations into corrupt networks. I would also 
encourage the Honduran Government to select a highly-qualified attorney 
general willing to support and collaborate with MACCIH to fight 
corruption and impunity.
    If confirmed, I also would engage the Governments of Guatemala and 
Honduras to underscore the importance of achieving results on 
Congressionally-mandated criteria regarding combatting corruption and 
cooperation with commissions against impunity and regional human rights 
entities.
Honduras
    Question 35. Many members of Congress were deeply troubled by the 
Honduran elections at the end of last year. The disturbing evidence 
presented by the OAS suggests varying degrees of tampering took place 
in the election results tabulation process. Numerous public reports 
indicate that two dozen protesters were killed after the elections, 
mostly by the Honduran Military Police.

   Was the Honduran election free, fair, and democratic?

    Answer. I understand international observers generally recognized 
the elections to be free, but noted serious procedural irregularities 
in the electoral process. If confirmed, I will continue to support the 
United States' policy goals of strengthening democratic institutions in 
Honduras as the long-term solution to ensuring elections represent the 
will of the Honduran people. It is up to the Honduran people to 
determine their political future through their democratic institutions 
and processes. If confirmed, I will advocate for supporting and 
strengthening democratic institutions throughout the Western 
Hemisphere.

    Question 36. Many members of Congress were deeply troubled by the 
Honduran elections at the end of last year. The disturbing evidence 
presented by the OAS suggests varying degrees of tampering took place 
in the election results tabulation process. Numerous public reports 
indicate that two dozen protesters were killed after the elections, 
mostly by the Honduran Military Police.

   Why did the administration recognize the results of a flawed 
        process?

    Answer. The Department of State recognized the election of 
President Hernandez on December 22, 2017, as declared by the Honduran 
Supreme Electoral Tribunal (TSE). I share your concerns regarding the 
electoral irregularities identified by the Organization of American 
States (OAS). Those irregularities and the close election results 
highlighted the need for a significant long-term effort to heal 
Honduras's political divide. I understand Honduras invited the United 
Nations to provide support to a national dialogue for reconciliation, 
and the United Nations is leading a series of meetings with the three 
leading political parties to identify parameters for a potential 
national dialogue. If confirmed, I will advocate for a robust national 
dialogue and the enactment of significant electoral reforms to 
strengthen confidence in Honduran institutions.
    I also share your concerns related to the deaths of civilians 
following the election. If confirmed, I will emphasize to the Honduran 
Government the need to ensure security forces respect the rights of 
protestors and to investigate credible allegations of human rights 
abuses by security forces and hold accountable those responsible.

    Question 37. Many members of Congress were deeply troubled by the 
Honduran elections at the end of last year. The disturbing evidence 
presented by the OAS suggests varying degrees of tampering took place 
in the election results tabulation process. Numerous public reports 
indicate that two dozen protesters were killed after the elections, 
mostly by the Honduran Military Police. The OAS Secretary General 
called for new elections.

   Do you think Honduras should have held new elections?

    Answer. I value the OAS role in the observation of this and other 
elections in the hemisphere and share your concerns regarding the 
electoral irregularities identified by the Organization of American 
States (OAS). However, I understand that there was not enough evidence 
of specific fraud that would have changed the outcome of the election 
or necessitated a new one. Those irregularities and the close election 
results highlighted the need for a significant long-term effort to heal 
Honduras's political divide and to enact significant electoral reforms 
to strengthen confidence in Honduran institutions. If confirmed, I will 
advocate for a robust national dialogue and the enactment of 
significant electoral reforms to strengthen confidence in Honduran 
institutions.

    Question 38. Many members of Congress were deeply troubled by the 
Honduran elections at the end of last year. The disturbing evidence 
presented by the OAS suggests varying degrees of tampering took place 
in the election results tabulation process. Numerous public reports 
indicate that two dozen protesters were killed after the elections, 
mostly by the Honduran Military Police.

   What is your assessment of how other countries in the hemisphere 
        view U.S. willingness to recognize the result of a deeply 
        flawed process carried out by a government the professes to be 
        a close friend of the United States?

    Answer. The Department of State recognized the election of 
President Hernandez on December 22, 2017, as declared by the Honduran 
Supreme Electoral Tribunal (TSE). Mexico, Colombia, and Spain had 
previously issued similar statements when the United States statement 
was released. It is up to the Honduran people to determine their 
political future through their democratic institutions and processes.
Temporary Protected Status (TPS)
    Question 39. What was your role in the decision making process 
related to the State Department's recommendation to the Department of 
Homeland Security regarding the Temporary Protected Status designations 
for El Salvador, Honduras and Haiti?

    Answer. Although I did not offer an opinion, I was aware that 
deliberations were ongoing inside the Department between relevant 
Bureaus on the issue of Temporary Protected Status.

    Question 40. During the decision making process, did you express 
any affirmative or negative opinions regarding the recommendations made 
in the diplomatic cables from the U.S. Embassies in El Salvador, 
Honduras and Haiti?

    Answer. No.

    Question 41. In the event that you did not express any opinions, 
why not?

    Answer. I didn't see a need as the Western Hemisphere Bureau fully 
presented its views on Temporary Protected Status.

    Question 42. During the decision making process, did you express 
any affirmative or negative opinions regarding then-Secretary 
Tillerson's recommendation to DHS?

    Answer. I agreed with the Secretary's assessment there could be 
risks to U.S. bilateral relationships and programs in El Salvador, 
Honduras, and Haiti if the process is not well managed. If confirmed, I 
will work with the Governments of El Salvador, Honduras, and Haiti to 
maintain strong U.S. bilateral relationships and ongoing programs to 
ensure that any possible risks that may emerge are mitigated.

    Question 43. In the event that you did not express any opinions, 
why not?

    Answer. As I stated in Question 42, I agreed with the Secretary's 
assessment there could be risks to U.S. bilateral relationships and 
programs in El Salvador, Honduras, and Haiti if the process is not well 
managed.

    Question 44. Even if you were not explicitly asked for nor did you 
offer your opinion on the matter of terminating TPS for these 
countries, as a long-term specialist on the region, do you assess that 
ending TPS for El Salvador, Honduras, and Haiti poses a risk to U.S. 
national security interests?

    Answer. I assess there could be risks to U.S. bilateral 
relationships and programs in El Salvador, Honduras, and Haiti if the 
process is not well managed. If confirmed, I will work with the 
Governments of El Salvador, Honduras, and Haiti to maintain strong U.S. 
bilateral relationships and ongoing programs to ensure that any 
possible risks that may emerge are mitigated.

    Question 45. Do you believe that the Governments of El Salvador, 
Honduras, and Haiti have the capacity to effectively repatriate more 
than 400,000 people, in total?

    Answer. As a part of its review, DHS decided on a delayed effective 
date of 18 months for El Salvador, Honduras, and Haiti to permit an 
orderly transition, both for those returning home and for the country 
receiving them. The phase-out period will provide time for TPS 
beneficiaries to arrange for their departure and for the countries to 
prepare for the reception and reintegration of their citizens. Our 
embassies in Honduras and El Salvador have met with host government 
counterparts to encourage the development of programs to reintegrate 
their citizens. With respect to Haiti, we have urged the Haitian 
Government to make changes to facilitate investment in order to grow 
its economy and increase economic opportunity in order to prepare for 
the reception and reintegration of its citizens. If confirmed, I will 
redouble these efforts.

    Question 46. Is it your assessment that the repatriation of more 
than 400,000 people to El Salvador, Honduras and Haiti--if not handled 
effectively--would threaten the stability and security of these 
countries?

    Answer. The effective repatriation of temporary migrants to their 
home countries is critical to the stability and security of those 
countries. Our embassies in Haiti, Honduras, and El Salvador have met 
with host government counterparts to encourage the further development 
of programs to reintegrate their citizens and to expand economic 
activity and opportunity. If confirmed, I will work to redouble the 
efforts of our overseas missions to strengthen the region's ability to 
reintegrate all returning nationals, including TPS returnees. As a 
longstanding partner of these countries, the U.S. Government remains 
committed to all three countries' long-term security and stability.

    Question 47. In the event that the more than 400,000 TPS 
beneficiaries are accompanied by their more than 270,000 U.S. citizen 
children, do you believe that the Governments of El Salvador, Honduras, 
and Haiti can guarantee the safety and well-being of these American 
children?

    Answer. If confirmed, I will make sure the Department continues to 
provide all available consular services to U.S. citizens, including 
U.S. citizen children of beneficiaries of Temporary Protected Status. I 
am committed to continuing the Department's work to help the countries 
of Central America and Haiti to address economic opportunity, reduce 
insecurity and violence, and fight impunity and corruption. I will also 
make sure the U.S. Government continues to implement programs that 
empower youth by supporting educational, social, and employment 
opportunities for youth and violence prevention activities.

    Question 48. In his October 31, 2017 letter to Acting DHS Secretary 
Duke, Secretary Tillerson cautioned that ending TPS for El Salvador and 
Honduras could jeopardize U.S. foreign policy objectives in those two 
countries. Do you agree with that assessment?

    Answer. I agree that if the process is not properly handled risks 
to U.S. bilateral relationships may emerge. A secure and stable Central 
America contributes to a safer and more prosperous United States by 
helping to secure our borders, protect U.S. citizens, and increase 
opportunities for U.S. and other businesses. I understand U.S. programs 
address the underlying economic development, security, and governance 
challenges that contribute to illegal immigration and illicit 
trafficking. If confirmed, I will continue to advance the Department's 
work with Central American governments to advance these objectives.
    As a part of its review, DHS decided on a delayed effective date of 
18 months for El Salvador, Honduras, and Haiti to permit an orderly 
transition, both for those returning home and for the country receiving 
them. The phase-out period will provide time for the countries to 
prepare for the reception and reintegration of their citizens. Our 
embassies in Honduras and El Salvador have met with host government 
counterparts to encourage the development of programs to reintegrate 
their citizens. If confirmed, I will redouble these efforts.

    Question 49. In his October 31, 2017 letter to Acting DHS Secretary 
Duke, Secretary Tillerson cautioned that ending TPS for El Salvador and 
Honduras could jeopardize U.S. cooperation with both governments to 
combat transnational organized crime. Do you agree with that 
assessment?

    Answer. A secure and stable Central America contributes to a safer 
and more prosperous United States by helping to secure our borders, 
protect U.S. citizens, and increase opportunities for U.S. and other 
businesses. I understand the U.S. Government partners with law 
enforcement agencies in El Salvador and Honduras to facilitate real-
time information sharing and inform law enforcement operations to 
combat transnational organized crime. If confirmed, I will continue to 
advance programs in partnership with these governments that dismantle 
transnational gangs, such as MS-13 and 18th Street, and other 
transnational criminal organizations.

    Question 50. In diplomatic cable San Salvador 860, dated July 7, 
2017, the U.S. Embassy in El Salvador warned that U.S. citizen children 
accompanying TPS beneficiaries returning to the country could be 
vulnerable to gang recruitment or other forms of illicit employment. Do 
you agree with that assessment?

    Answer. I am concerned with the security situation posed by gangs 
in El Salvador and the region, including gang recruitment of minors. 
The multi-year U.S. Strategy for Central America addresses the 
underlying economic development, security, and governance challenges 
that contribute to illegal immigration. I understand the U.S. Embassy 
in El Salvador has met with host government counterparts to encourage 
the further development of programs and services that will facilitate 
the effective reintegration of their citizens into their respective 
societies. I also understand USAID has hosted migration workshops in El 
Salvador to explore challenges and best practices in reintegration. If 
confirmed, I will continue to work with the Government of El Salvador 
to strengthen its ability to safely and successfully reintegrate their 
returning nationals, including TPS returnees, as well as ensure that 
our Embassy is able to assist U.S. citizens, including minor children.

    Question 51. In diplomatic cable San Salvador 860, dates July 7, 
2017, the U.S. Embassy in El Salvador warned that repatriating more 
than 260,000 TPS beneficiaries to El Salvador could accelerate 
``illegal immigration'' to the United States. Do you agree with this 
assessment?

    Answer. I understand that the multi-year U.S. Strategy for Central 
America is working to address the underlying economic development, 
security, and governance challenges that contribute to illegal 
immigration. I understand the U.S. Embassy in El Salvador has met with 
host government counterparts to encourage the further development of 
programs and services that will facilitate the effective reintegration 
of their citizens into their respective societies and USAID has hosted 
migration workshops in El Salvador to explore challenges and best 
practices in reintegration. If confirmed, I will redouble our efforts 
to work with our Embassy and the Government of El Salvador to 
strengthen its ability to reintegrate their returning nationals, 
including TPS returnees, and stem the flow of illegal migration.

    Question 52. In diplomatic cable Tegucigalpa 618, dated June 29, 
2017, the U.S. Embassy in Honduras warned that U.S. citizen children 
accompanying TPS beneficiaries returning to the country could be 
vulnerable to gang recruitment or other forms of illicit employment. Do 
you agree with that assessment?

    Answer. I remain concerned with the security situation posed by 
gangs in Honduras and the region, including gang recruitment of minors. 
Through the U.S. Strategy for Central America, the Department of State 
implements programs to empower youth by supporting educational, social, 
and employment opportunities for at-risk and disadvantaged youth and 
violence prevention activities. One example of these programs aimed at 
preventing youth from joining gangs is the Gang Resistance Education 
and Training (GREAT) program. The GREAT program supports nationwide 
prevention of violence and youth gang involvement through the 
development of a positive relationship between Honduran law 
enforcement, families, and young people. Since the Department launched 
the GREAT program in 2013, over 375 Honduran National Police officers 
have been trained as GREAT instructors and more than 240,000 students 
have participated in the program. I will continue to work with our in-
country partners to continue GREAT and other similar programs to 
address gang recruitment of youth.
    The United States will continue to provide all available consular 
services to U.S. citizens, including U.S. citizen children of Temporary 
Protected Status beneficiaries. In coordination with the Honduran 
Government, the United States also will work to ensure that U.S. 
citizen children returning to Honduras with their parents are able to 
access education, local health services, and other social services.

    Question 53. What steps will you take to guarantee that U.S. 
foreign policy objectives are not undermined by the decision to end TPS 
for El Salvador, Honduras, and Haiti?

    Answer. If confirmed, I will continue to promote U.S. foreign 
assistance programs in Central America and Haiti that disrupt 
transnational criminal organizations, promote citizen security, halt 
illegal immigration, and promote sustainable economic growth by 
addressing the underlying causes of insecurity, impunity, and lack of 
economic opportunity.
    As a part of its review, DHS decided on a delayed effective date of 
18 months for El Salvador, Honduras, and Haiti to permit an orderly 
transition, both for those returning home and for the country receiving 
them. Our embassies in Honduras and El Salvador have met with host 
government counterparts to encourage the development of programs to 
reintegrate their citizens. With respect to Haiti, we have urged the 
Haitian Government to make changes to facilitate investment in order to 
grow its economy and increase economic opportunity in order to prepare 
for the reception and reintegration of its citizens. If confirmed, I 
will redouble these efforts.

    Question 54. What amount of financial resources from the FY 2019 
budget request and the FY 2018 and FY 2017 budgets would you recommend 
that the State Department dedicate to ensuring the effective 
repatriation of more than 400,000 TPS beneficiaries to El Salvador, 
Honduras, and Haiti?

    Answer. If confirmed, I will work with the relevant bureaus and 
offices to ensure U.S. foreign assistance promotes our foreign policy 
objectives in the region. Such programs include programming to combat 
transnational criminal organizations and drug trafficking, halt illegal 
immigration, and promote sustainable economic growth by addressing the 
underlying causes of insecurity, impunity, and lack of economic 
opportunity. Support for programs under the U.S. Strategy for Central 
America that have shown positive results should be considered for 
additional support. These programs contribute to improved living 
conditions and economic opportunity for those residing in and returning 
to these countries.

    Question 55. How would you work with the Governments of El 
Salvador, Honduras and Haiti to mitigate the massive upheaval if 
400,000 people are returned to their country of origin, as well as 
guarantee the safety of these individuals and that of their U.S. 
citizen children that will be accompanying them?

    Answer. If confirmed, I will continue to work with our embassies 
and USAID to strengthen the region's ability to reintegrate all 
migrants, including TPS returnees. I understand that USAID has hosted 
migration workshops in El Salvador and Honduras to explore challenges 
and best practices in reintegration. Our embassies in El Salvador, 
Honduras, and Haiti have met with host government counterparts to 
encourage the further development of programs to reintegrate their 
citizens. Our embassies and consulates overseas stand ready to provide 
appropriate consular services for U.S. citizens, including U.S. citizen 
children of TPS beneficiaries.

    Question 56. If confirmed, will you advocate that Secretary Pompeo 
reconsider the recommendations of his predecessor to DHS in order to 
better draw on the expertise of State Department officials?

    Answer. There is tremendous expertise residing in the Department of 
State and, if confirmed, I will ensure that expertise is leveraged 
toward achieving the best possible policy outcomes for the United 
States. If confirmed, I would work closely with and draw upon 
Department experts on TPS beneficiary countries to manage the bilateral 
relationships.

    Question 57. What contact did the State Department's Office of 
Policy Planning have with the White House Domestic Policy Council prior 
to Secretary Tillerson issuing his October 31, 2017 recommendations?

    Answer. I did not discuss TPS with the White House Domestic Policy 
Council.

    Question 58. Did the State Department's Office of Policy Planning 
lend more credence to the recommendations and guidance of the White 
House Domestic Policy Council than the recommendations and warnings of 
U.S. diplomatic personnel?

    Answer. I did not discuss TPS with the White House Domestic Policy 
Council.

    Question 59. Did the State Department's Office of Policy Planning 
provide direct policy guidance to the Bureau of Western Hemisphere 
Affairs as to how it should formulate its recommendation to Secretary 
Tillerson? If so, what was the nature of that guidance?

    Answer. The Department's internal Temporary Protected Status (TPS) 
review process is comprehensive and well established. It involves input 
from the relevant regional bureau and U.S. embassy in the TPS country 
under review, the Bureau of Population, Refugees, and Migration (PRM), 
and the Office of the Legal Adviser. Additional offices that review and 
contribute to the process include the Secretary's Policy Planning 
Staff, the Office of the Deputy Secretary, and the Office of the 
Undersecretary for Political Affairs. All sources of information are 
considered in developing the Department's recommendation. Regional 
bureaus take into account posts' on-the-ground insights into country 
conditions as applied to the legal requirements outlined in the TPS 
statute.

    Question 60. Did the State Department's Office of Policy Planning 
provide direct policy guidance to the Bureau of Population, Refugees, 
and Migration as to how it should formulate its recommendation to 
Secretary Tillerson? If so, what was the nature of that guidance?

    Answer. My portfolio covers the Bureau of Western Hemisphere 
Affairs. I never discussed TPS with the PRM Bureau.

    Question 61. What was the Bureau of Western Hemisphere Affair's 
recommendation to the Secretary's Office of Policy Planning?

    Answer. While I cannot speak to WHA's internal deliberations, the 
Department's internal Temporary Protected Status (TPS) review process 
is comprehensive and well established. The Secretary's recommendation 
to DHS is based on input from the relevant regional bureau and U.S. 
embassy in the TPS country under review, the Bureau of Population, 
Refugees, and Migration (PRM), and the Office of the Legal Adviser. 
Additional offices that review and contribute to the process include 
the Secretary's Policy Planning Staff, the Office of the Deputy 
Secretary, and the Office of the Under Secretary for Political Affairs.

    Question 62. Do you commit to making decision based on the input of 
career foreign service professions when it comes to Temporary Protected 
Status?

    Answer. Yes.

    Question 63. Thirty-two percent of Salvadoran and Honduran TPS 
holders surveyed in 2016 owned their own home and are making mortgage 
payments. What will happen to the homes when TPS is terminated?

    Answer. The Department of Homeland Security, as a part of its 
review of Temporary Protected Status (TPS), decided on a delayed 
effective date of 18 months for El Salvador and Honduras to permit an 
orderly transition for individuals returning home and for the countries 
receiving them. The phase-out period will provide time individuals to 
arrange for their departure and for the countries to prepare for the 
reception and reintegration of its citizens. consular services for U.S. 
citizens.

    Question 64. Will you advocate that former TPS holders be eligible 
to apply for non-immigrant tourist and business visas to travel to the 
United States after the end of the TPS designation for their respective 
countries?

    Answer. The Department is committed to facilitating legitimate 
tourist and business travel to the United States, without compromising 
our border security. Any citizen of a foreign country seeking to enter 
the United States may apply for a non-immigrant visa. The purpose of 
intended travel and other facts determine what type of visa is required 
under U.S. immigration law. The applicant must meet all requirements to 
receive the category of visa for which they are applying.

    Question 65. If confirmed, what strategy would you recommend to 
address the Venezuelan crisis?

    Answer. The political and economic crises in Venezuela continue to 
deteriorate precipitously, ?causing a humanitarian crisis and outflow 
of Venezuelans at levels that threaten regional stability and U.S. 
interests. As a result, responding to this crisis will take a whole of 
government approach, including close coordination with like-minded 
countries in the Western Hemisphere and beyond.
    The administration has developed a strategy that coordinates the 
U.S. approach and addresses key issues related to the crisis through 
five lines of effort: diplomatic engagement; strategic communications; 
economic measures; support to democratic actors, and contingency 
planning and humanitarian assistance.

    Question 66. If confirmed, do you commit to working with Congress 
on legislation to advance a comprehensive U.S. strategy to address the 
humanitarian, political, and economic crisis in Venezuela?

    Answer. Yes, if confirmed, I commit to working with Congress on 
legislation to advance a comprehensive U.S. strategy to address the 
humanitarian, political, and economic crisis in Venezuela.

    Question 67. What do you believe is the most effective way to 
facilitate about the restoration of democracy in Venezuela?

    Answer. The international community has a role to play in 
facilitating Venezuela's return to a prosperous, democratic country. 
The Maduro regime has shown how far it is willing to go to maintain 
power. It seeks international legitimacy and support for its actions. 
If confirmed, I will ensure the United States continues to coordinate 
with the international community to hold regime officials accountable 
for their actions. I will also seek to redouble our efforts at the 
Organization of American States, through the United Nations, and in 
support of the efforts of the Lima Group. International pressure, 
alongside support to democratic actors in Venezuela, is paramount in 
facilitating a restoration of democracy in Venezuela.

    Question 68. Will you personally engage in diplomatic efforts and 
ensure that senior State Department officials have the tools they need 
to pursue a coordinated international response to the situation in 
Venezuela?

    Answer. Yes. If confirmed, I will personally engage in diplomatic 
efforts and ensure that senior State Department officials have the 
tools they need to pursue a coordinated international response to the 
situation in Venezuela.

    Question 69. In August 2017, President Trump stated that the U.S. 
has a `military option' for Venezuela; do you support the use of the 
U.S. military to address Venezuela's political, economic and 
humanitarian crisis?

    Answer. If confirmed, my role would be to pursue a diplomatic 
solution to the Venezuelan crisis. To date the administration has 
undertaken robust diplomatic engagement in the region and globally in 
support of the Venezuelan people. I would, if confirmed, continue and 
build upon these efforts to seek a peaceful resolution.

    Question 70. Numerous press articles have cited that the 
administration is considering sanctions on the Venezuelan oil sector; 
how would oil sanctions affect Venezuela's economic and humanitarian 
crisis, and how might it facilitate a diplomatic solution the country's 
political crisis?

    Answer. The administration uses sanctions as one of several tools 
to address the deteriorating situation in Venezuela. The United States 
has designated more than 50 Venezuelan nationals since January 2017, 
including President Nicolas Maduro and former Vice President Tareck El 
Aissami, for their actions against the Venezuelan people. If confirmed, 
I will support additional strong and swift action to prevent the theft 
of Venezuela's wealth by corrupt individuals in the Maduro regime.
    With regard to potential energy sector sanctions, if confirmed I 
will consider additional diplomatic and economic measures to support 
the restoration of democracy in Venezuela and also take into 
consideration potential impacts on the humanitarian crisis, U.S. 
interests, and our partners in the region and global community.

    Question 71. During a speech at the University of Texas, then-
Secretary Tillerson suggested that the Venezuelan military should 
``handle that,'' referring to the restoration of the constitutional 
order in Venezuela; what is your assessment of this statement?

    Answer. President Maduro has undermined democracy in Venezuela by 
destroying democratic institutions, processes, and norms. The 
administration has repeatedly called on Maduro, the opposition, and all 
actors including the military to press for a return to the democratic 
path in Venezuela.

    Question 72. Did you advise Secretary Tillerson to make such a 
statement?

    Answer. No.

    Question 73. What aspects of the Venezuelan military's involvement 
in drug trafficking, human rights abuses, and widespread corruption 
would suggest that it would facilitate a return to democracy?

    Answer. All Venezuelans should support Venezuela's return to a 
prosperous democracy. Members of the Venezuelan armed forces can be a 
part of the future of Venezuela if they respect the rule of law; 
however, those who choose to put their own interests above those of 
their fellow citizens should expect to be held accountable.

    Question 74. How should the Department of State address the 
humanitarian crisis in Venezuela?

    Answer. If confirmed, I will redouble the Department's efforts to 
support a U.S. Government humanitarian assistance response to the 
Venezuelan crisis and its impact on the region, including by working 
with the international community and interagency to coordinate 
assistance efforts both inside and outside of Venezuela. While the U.S. 
Government's ability to provide direct assistance to the Venezuelan 
people in their own country is limited by the Maduro regime's refusal 
to permit large-scale international humanitarian aid into the country, 
the U.S. Government is providing assistance throughout the region. The 
Department is working with the U.S. Agency for International 
Development (USAID), and other international organizations--including 
UNHCR and the International Organization for Migration--to ensure there 
is a comprehensive international response. This support will provide 
assistance to Venezuelans in Colombia, Brazil, Ecuador, Peru, and other 
countries in the region receiving large numbers of Venezuelans. The 
Department has also called on the Maduro regime to accept international 
humanitarian assistance, and if confirmed I will continue to urge the 
international community to express concern and support humanitarian 
assistance to relieve the suffering of the Venezuelan people. I will 
specifically continue to encourage additional contributions from 
regional governments and other donor countries to meet growing needs.

    Question 75. Will you prioritize humanitarian and refugee issues 
alongside sanctions and the tools needed to address growing criminality 
in Venezuela?

    Answer. If confirmed, I will seek to employ all of the policy tools 
at the disposal of the U.S. Government to address the worsening 
humanitarian crisis in Venezuela and in the region. This crisis has led 
to more than 1.8 million Venezuelans deciding to flee their country in 
search of better conditions. It will be important to provide assistance 
quickly to prevent further regional instability. The United States has 
already made significant financial commitments to respond to the 
outflow of Venezuelans, and I will continue to encourage additional 
financial contributions from regional organizations and other donor 
governments.

    Question 76. What should the United States do to ensure an adequate 
humanitarian response to the flow of Venezuelan migrants and refugees 
fleeing from the crisis in Venezuela?

    Answer. The humanitarian crisis is worsening by the day. 
Venezuelans fleeing their country need shelter, food, medical services, 
documentation, legal protection, and pathways to integration in their 
host countries. The United States has committed nearly $40 million in 
humanitarian and development assistance to support Venezuelans fleeing 
the manmade crisis in Venezuela and the countries that are hosting 
them. If confirmed, I will continue the Department's work with U.S. 
partners in the region, including multilateral organizations, host 
countries, and the inter-agency, to determine how best to assist the 
Venezuelan people and continue to encourage other donors to also 
contribute to these efforts. U.S. assistance is critical as the 
conditions worsen and more Venezuelans decide to flee, and both the 
Department and USAID intend to increase our assistance in the coming 
months.

    Question 77. Do you support robust funding for UNHCR and other 
agencies charged with responding to the crisis?

    Answer. Yes. The Department's Bureau of Western Hemisphere Affairs 
is working with the Bureau of Population, Refugees, and Migration to 
support UNHCR's regional appeal for assistance related to the Venezuela 
crisis. The Department of State provided more than $3.3 million to 
UNHCR to provide immediate assistance to Venezuelans in Colombia, 
Brazil, Costa Rica, and the Caribbean. The Department is providing 
another $12 million to UNHCR for programs to assist Venezuelans 
throughout the region. In addition, USAID has also provided $5.6 
million for assistance to Venezuelans in Colombia and an additional 
$500,000 to assist Venezuelans in Brazil. If confirmed, I would support 
the continued provision of humanitarian assistance to address this man-
made crisis and support the victims of the Maduro regime's policies.
TIP Report
    Question 78. Under the Obama administration, the State Department 
raised Cuba from Tier 3 to Tier 2 Watch List on its annual Trafficking 
in Persons report. However, there is widespread consensus that many 
Cuban doctors are forced to travel and work abroad in conditions that 
resemble indentured servitude. Under the Trump administration, Cuba 
remains on the Tier 2 Watch list.

   What is your assessment of the forced labor conditions that many 
        Cuban doctors faced when they are conscripted to work abroad?

    Answer. Combatting trafficking in persons and forced labor remains 
a key priority for this administration, and I understand the Department 
is actively engaged with the Cuban Government on these issues. I share 
the Department's concerns, outlined in its 2017 Trafficking in Persons 
report, that the Cuban Government does not prohibit forced labor, 
report efforts to prevent forced labor domestically, or recognize 
forced labor as a possible issue affecting its nationals in medical 
missions abroad. I understand the Department has expressed these 
concerns directly with the Cuban Government.
    I am aware of reports that participants in foreign medical missions 
are coerced by Cuban officials into these programs, for example by 
withholding participants' passports, restricting their movement, or 
threatening to revoke their medical licenses or retaliate against their 
family members in Cuba if participants leave the program. If confirmed, 
I will review closely all reports on these matters to advance our 
administration's priorities in combatting trafficking in persons and 
forced labor in Cuba.

    Question 79. Under the Obama administration, the State Department 
raised Cuba from Tier 3 to Tier 2 Watch List on its annual Trafficking 
in Persons report. However, there is widespread consensus that many 
Cuban doctors are forced to travel and work abroad in conditions that 
resemble indentured servitude. Under the Trump administration, Cuba 
remains on the Tier 2 Watch list.

   If confirmed, what information would you advocate be included do 
        you commit to ensure robust attention to this issue in the TIP 
        report?

    Answer. The Department prepares its annual Trafficking in Persons 
report and determines the Tier rankings using information from a wide 
range of sources including U.S. embassies, nongovernmental and 
international organizations, media sources, and published reports. I 
share the Department's concerns that the Cuban Government does not 
prohibit forced labor, report efforts to prevent forced labor 
domestically, or recognize forced labor as a possible issue affecting 
its nationals in medical missions abroad. If confirmed, I will ensure 
that a broad range of sources are reviewed and analyzed when preparing 
the Trafficking in Persons report on Cuba to make certain issues such 
as forced labor continue to be addressed.

    Question 80. Under the Obama administration, the State Department 
raised Cuba from Tier 3 to Tier 2 Watch List on its annual Trafficking 
in Persons report. However, there is widespread consensus that many 
Cuban doctors are forced to travel and work abroad in conditions that 
resemble indentured servitude. Under the Trump administration, Cuba 
remains on the Tier 2 Watch list.

   If confirmed, would you recommend downgrading Cuba to Tier 3?

    Answer. Combatting trafficking in persons remains a key priority 
for this administration, and I understand the Department is actively 
engaged with the Cuban Government on this issue.
    The Department prepares its annual Trafficking in Persons report 
and determines the Tier rankings using information from a wide range of 
sources including U.S. embassies, nongovernmental and international 
organizations, media sources, and published reports. I understand that, 
in 2017, the Department ranked Cuba as Tier 2 Watch List for the third 
consecutive year. The Secretary granted Cuba a waiver from an otherwise 
required downgrade to Tier 3 consistent with the Trafficking Victims 
Protection Act (TVPA) because the Cuban Government devoted sufficient 
resources to a written plan that, if implemented, would constitute 
significant efforts to meet the minimum standards. I also understand 
the Secretary has authority to grant Cuba one more waiver in 2018 if 
Cuba remains at Tier 2 Watch List, but in 2019, Cuba must be upgraded 
or downgraded.
    If confirmed, I will seek to advance the administration's 
priorities in combatting trafficking in persons in Cuba and work with 
the Office to Monitor and Combat Trafficking in Persons to ensure its 
annual report accurately reflects the extent of Cuba's efforts to meet 
the TVPA minimum standards for the elimination of human trafficking.
Democracy Assistance
    Question 81. The Cuban people have long suffered under a regime 
that suppresses their freedom and fails to respect human dignity.

   As the Government of Cuba continues to suppress freedom of 
        expression and continues to carry out arbitrary detentions of 
        peaceful demonstrators, would you advocate restoring U.S. 
        funding for democracy, human rights and civil society programs 
        to the traditional level of $20 million?

    Answer. The administration's Cuba policy announced in June 2017 
makes our continued support of democracy and human rights in Cuba and 
the intention to demonstrate solidarity with the Cuban people in the 
face of a repressive regime our primary objective. The democracy 
programs, which the Department of State and USAID administer inside and 
outside of Cuba, are an important tool for advancing our priorities on 
the island.
    I understand requested foreign assistance funding levels were 
reduced globally in FY19, but neither Cuba nor the region was singled 
out. If confirmed, I will ensure the Department continues to administer 
these important democracy programs to support the critical work of 
human rights defenders in Cuba, consistent with the administration's 
policy.

    Question 82. The Cuban people have long suffered under a regime 
that suppresses their freedom and fails to respect human dignity.

   If confirmed, how will you work support the critical work of 
        promoting a free and democratic Cuba?

    Answer. As directed by the June 2017 National Security Presidential 
Memorandum, ``Strengthening the Policy of the United States Toward 
Cuba,'' the Department has focused its efforts on promoting improved 
respect for human rights in Cuba. I understand the Department monitors 
human rights developments in Cuba and calls out violations by the Cuban 
Government. It also actively engages with members of Cuban civil 
society. The Department and USAID administer U.S. Government-funded 
programs to promote democracy and the exercise of fundamental freedoms 
and to support the critical work of human rights defenders on the 
island.
    If confirmed, I will continue to support these critical initiatives 
and work towards a more stable, prosperous, and free country for the 
Cuban people, consistent with the administration's policy.
Fugitives
    Question 83. The Government of Cuba has harbored fugitives who have 
been tried and convicted in the United States. Two of these fugitives 
include Joanne Chesimard, who is responsible for the murder of New 
Jersey State Trooper Werner Foerster during a routine traffic stop and 
William Morales, leader and chief bomb-maker for the terrorist 
organization FALN, who committed numerous terrorist attacks on United 
States soil, including the bombings of Fraunces Tavern in lower 
Manhattan in 1975 and the Mobil Oil employment office in New York in 
1977. In 2013, Chesimard became the first woman named to the Federal 
Bureau of Investigation's (FBI) Most Wanted Terrorists.

   If confirmed, will you advocate for the extradition of these 
        individuals so that they can face justice in the United States?

    Answer. Facilitating the return of fugitives, like Joanne 
Chesimard, is one of this administration's top priorities in our 
bilateral engagement with Cuba. I understand the Department of State, 
in conjunction with the Department of Justice and other relevant 
agencies, actively engages with the Cuban Government on fugitive issues 
through our bilateral Law Enforcement Dialogue and associated technical 
exchanges. Through this dialogue, I understand we continue to press the 
Cuban Government to return these fugitives. In addition, in January 
2018, New Jersey state troopers provided the Cuban law enforcement 
officials a briefing on the nature of the crimes committed by Joanne 
Chesimard, providing Cuba new information about her conduct.
    If confirmed, I will continue to work with relevant U.S. agencies 
and the Cuban Government to push for the return of individuals like 
Chesimard so they can face justice in the United States.

    Question 84. What has the Department of State done to ensure that 
none of the U.S. Government programs in Haiti were implicated by the 
Oxfam scandal?

    Answer. It is my understanding that USAID did not fund Oxfam during 
the 2010 Haiti earthquake response, and that USAID currently does not 
have any active programs with Oxfam in Haiti.
    In Fiscal Year 2015-2017, USAID provided $1.9 million to Oxfam in 
Haiti. This included funding to enhance disaster preparedness systems, 
as well as emergency humanitarian assistance following Hurricane 
Matthew in 2016. This funding was subject to USAID's strict Code of 
Conduct requirement, mandating that partners ensure the protection of 
beneficiaries from sexual exploitation and abuse in humanitarian relief 
operations.
    I further understand that the State Department has been in touch 
with Oxfam to ensure that no staff behaved improperly while working on 
programs funded by USAID.

    Question 85. Does the Department of State have a process to ensure 
that its subcontractors are not involved in sexual misconduct and 
generally abide by the same conduct guidelines that regulate U.S. 
Government employees?

    Answer. It is my understanding that the Department and USAID 
prioritize protecting vulnerable populations and aid beneficiaries from 
sexual exploitation and abuse in humanitarian relief operations.
    Prior to receiving funding from us, our partners must demonstrate 
that their humanitarian assistance programs not only protect 
beneficiaries' safety and well-being, but that they do not increase any 
population's risk of violence, coercion, or abuse.
    By law, any organization that receives International Disaster 
Assistance funding from USAID must adopt a Code of Conduct providing 
for the protection of beneficiaries from sexual exploitation and abuse 
in humanitarian relief operations.

    Question 86. How do you assess our recovery effort?

    Answer. Much progress has been made over the course of the past 
eight years. I understand that since the 2010 earthquake, the United 
States has made available more than $5.1 billion to Haiti to support 
life-saving post-disaster relief as well as longer-term recovery, 
reconstruction, and development programs.
    More than 20,000 jobs have been created in Haiti's growing export 
apparel sector, adding more than 1.5 percent to Haiti's GDP. In the 
agricultural sector, it is my understanding that U.S. assistance has 
helped 70,000 farmers increase crop yields, and introduced improved 
seeds, fertilizer, irrigation, and other technologies to more than 
100,000 farmers.
    U.S. health programs are improving access to basic services for 
approximately 40 percent of the population and have contributed to 
improvements in basic health indicators. The U.S. Government supports 
food and nutrition security targeting malnourished children under five, 
and vulnerable households. The United States has been instrumental in 
training civilian Haitian police, which now number over 15,000, thus 
enabling U.N. peacekeeping troops to depart in October 2017.
    USAID funded the construction of a power plant in northern Haiti 
that provides uninterrupted electricity to the Caracol Industrial Park, 
and local households, businesses, and government institutions have been 
connected with meters to the power grid.

    Question 87. What have been the principal barriers to a more speedy 
recovery and how do you hope to address them?

    Answer. While there have been successes, I believe Haiti needs to 
continue to take steps to create a more welcoming investment climate. 
It will become increasingly important for Haiti to build its own 
economy in order to generate greater prosperity for Haiti's citizens, 
and sufficient revenue to provide for key government services.
    If confirmed, I will see that the State Department continues to 
work with the Haitian Government, the Haitian private sector, and other 
bilateral and multilateral donors to improve Haiti's investment 
climate.
Trinidad & Tobago--ISIS Recruitment
    Question 88. Several prominent media outlets have reported that 
more than 100 Trinidadian citizens left their country to join the 
Islamic State over the last few years. As ISIS retreats, Trinidad faces 
the possibility that trained citizens could return to radicalize a 
younger generation. A younger, radicalized generation is extremely 
concerning, especially if it were to happen in our hemisphere. If 
confirmed, what steps will you take to address the issue of ISIS-
recruited returnees to Trinidad?

    Answer. Open source media reports that 135 Trinidad and Tobago 
citizens have gone to fight for ISIS, the highest per capita rate in 
the Western Hemisphere. Many of these fighters had prior affiliations 
with criminal gangs. If confirmed, I would support ongoing programs 
designed to build Trinidad and Tobago's capacity to counter violent 
extremism. Such programming includes an Embassy Port of Spain program 
to identify and amplify credible local voices to counter extremist 
messaging. Embassy Port of Spain also participated along with the 
Department of Defense in the Fused Response crisis management exercise 
with the Government of Trinidad and Tobago from April 16-26.
    The Trinidad and Tobago Government approved a comprehensive 
counterterrorism strategy in November 2017, and has proposed amendments 
to its existing Anti-Terrorism Act to address critical gaps in the 
legislation. If confirmed, I will press the Government to pass these 
amendments that will broaden the scope for terrorism-related 
prosecutions.

    Question 89. Several prominent media outlets have reported that 
more than 100 Trinidadian citizens left their country to join the 
Islamic State over the last few years. As ISIS retreats, Trinidad faces 
the possibility that trained citizens could return to radicalize a 
younger generation. A younger, radicalized generation is extremely 
concerning, especially if it were to happen in our hemisphere. Do you 
commit to working with the Government of Trinidad & Tobago to ensure 
that a cohesive strategy is in place?

    Answer. Yes, if confirmed, I commit to working with the Government 
of Trinidad & Tobago to ensure that a cohesive strategy is in place to 
counter violent extremism. The U.S. Government engagement pursues a 
whole of government approach to countering violent extremism that 
includes building law enforcement and judicial capacity as well as 
programming to counter violent extremist messaging.

    Question 90. Trinidad & Tobago Reporting indicates that SCL Group, 
the parent company of Cambridge Analytica--the data company that worked 
on Trump's campaign--planned to illegally acquire the internet-browsing 
histories of the citizens of Trinidad & Tobago, and use it to create 
psychological profiles to target voters on behalf of a political party 
there. What is your assessment of the SCL Group's activities in 
Trinidad & Tobago?

    Answer. I understand that press reports asserted a Trinbagonian 
political party employed a private data-mining firm in a previous 
election. If confirmed, I would work to continue our law enforcement 
cooperation with host government authorities.

    Question 91. Trinidad & Tobago Reporting indicates that SCL Group, 
the parent company of Cambridge Analytica--the data company that worked 
on Trump's campaign--planned to illegally acquire the internet-browsing 
histories of the citizens of Trinidad & Tobago, and use it to create 
psychological profiles to target voters on behalf of a political party 
there. Trinidad & Tobago is now reportedly investigating SCL Group's 
activities there--will you commit to assisting local authorities with 
their investigation?

    Answer. I understand that the United States is already committed to 
building law enforcement and justice sector capacity in Trinidad and 
Tobago. If confirmed, I would continue our commitment to enhancing 
those institutions in close coordination with the Government of 
Trinidad and Tobago.

    Question 92. Trinidad & Tobago Reporting indicates that SCL Group, 
the parent company of Cambridge Analytica--the data company that worked 
on Trump's campaign--planned to illegally acquire the internet-browsing 
histories of the citizens of Trinidad & Tobago, and use it to create 
psychological profiles to target voters on behalf of a political party 
there. Will you also commit to providing this committee with any 
information it requests regarding this issue?

    Answer. I am committed to transparency and appreciate the 
importance of Congressional oversight. If confirmed, I will strive to 
share information as appropriate with this committee.

    Question 93. Do you commit to working with our Colombian partners 
to advance a comprehensive strategy that combats all elements of the 
illicit narcotics trade?

    Answer. The Trump administration remains deeply concerned about the 
large increase in Colombian coca cultivation and cocaine production. At 
the U.S.-Colombia High-Level Dialogue (HLD) March 1, the United States 
and Colombia agreed to expand counternarcotics cooperation over the 
next five years, with the shared goal of reducing Colombia's estimated 
cocaine production and coca cultivation to 50 percent of current levels 
by 2023. If confirmed, I will prioritize work with Colombia to ensure 
continued progress in reducing coca cultivation and the production of 
cocaine as agreed to at the HLD, including through enhanced 
eradication, interdiction, alternative development, and operations to 
dismantle narcotrafficking organizations.

    Question 94. What do you plan to do to address some of the broader 
problems that are complicating our counternarcotic efforts in Colombia 
like a lack of state presence in vulnerable regions of Colombia and a 
dearth of viable economic opportunities?

    Answer. Colombia needs to do more to reverse the large increase in 
coca cultivation and cocaine production in Colombia, including by 
making more progress to expand the presence of security and civilian 
agencies to vulnerable regions. U.S. assistance plays a key role in 
supporting this effort. The administration works in Colombia with all 
levels of government, the armed forces, and the private sector to 
extend government presence, confront illegality, and encourage licit, 
sustainable development. If confirmed, I will continue to work with the 
Colombian Government to support the expansion of capable government 
services, security, and economic opportunities throughout the country.

    Question 95. Do you commit to working in partnership with USAID to 
expanding and strengthening alternative development programs in 
Colombia?

    Answer. The United States strongly supports Colombia's efforts to 
secure a just and lasting peace. I understand the Department of State 
and USAID work together to support Colombia's transition towards a 
durable peace through efforts to reestablish state control in 
vulnerable regions in a phased approach that combines security, 
counternarcotics, and economic and social development. If confirmed, I 
will commit to working with USAID to support government and citizen 
efforts in Colombia to expand government presence, confront criminal 
groups, and encourage licit, sustainable development.

    Question 96. Do you commit to work with the U.S. Departments of 
Treasury and Justice to prioritize combatting financial crimes as part 
of our engagement with Colombia, including increasing money laundering 
prosecutions and asset forfeiture cases?

    Answer. Despite the Government of Colombia's fairly strict anti-
money laundering regime, the laundering of money, primarily from 
Colombia's illicit drug production and illegal mining but also from 
domestic terrorist groups, continues to penetrate its economy and 
affect its financial institutions. I understand Colombia is taking 
appropriate steps by addressing some of the inefficiencies in its asset 
forfeiture regime. I believe Colombia should continue to look for 
additional ways to increase efficiency and streamline its judicial 
system. If confirmed, I will continue to work with the U.S. Departments 
of the Treasury and Justice to prioritize efforts to combat financial 
crimes.

    Question 97. How do you plan to work with our partners in Colombia 
to more aggressively target financial crimes?

    Answer. Colombia is a vital partner in the fight against financial 
crimes, which fuel narcotrafficking and other forms of illicit 
activity. If confirmed, I will continue the Department's efforts to 
build Colombia's capacity to combat money laundering and other 
financial crimes, pursue forfeiture, and effectively manage seized 
assets in order to target criminal networks and crucial business 
facilitators, with the goal of disrupting and dismantling their 
organizations. I will also encourage continued collaboration between 
the Department of the Treasury, the Department of Justice, and the U.S. 
interagency to target the financial crimes of Colombia-based criminal 
organizations.

    Question 98. While pursuing bilateral counternarcotics cooperation, 
how can we work with Colombia to arrest its alarming increase in 
killings of social leaders and human rights defenders?

    Answer. The administration works in Colombia to support efforts to 
protect civil society, including human rights defenders and community 
leaders, from violence fueled by narcotrafficking organizations and 
other illegal armed criminal groups. If confirmed, I will continue to 
work with Colombia to reduce drug flows, dismantle illegal armed 
groups, hold accountable those responsible for attacks on social 
leaders, and support government and civilian efforts to provide 
effective security guarantees for civil society.

    Question 99. What steps would you take to guarantee the political 
and human rights of Afro-Colombian and indigenous persons?

    Answer. The United States strongly supports Colombia's efforts to 
secure a lasting peace. The United States employs a comprehensive 
approach to promote peace, human rights, and social inclusion of 
indigenous and Afro-Colombians, including through programming, 
engagement with civil society, funding for the U.S.-Colombia Action 
Plan on Racial and Ethnic Equality, and ongoing dialogue with the 
Colombian Government. If confirmed, I will continue to support 
Colombia's efforts to secure an inclusive peace, including 
implementation of the peace accord's Ethnic Chapter, and to hold 
accountable all those responsible for attacks on ethnic leaders and 
communities as a way to deter future violence.

    Question 100. As we work to advance counternarcotics cooperation, 
what do you see as the role of the United States in helping Colombia in 
its implementation of the peace accord?

    Answer. The United States strongly supports Colombia's efforts to 
secure a just and lasting peace. Colombia remains one of the United 
States' strongest partners in the region, and successful implementation 
of the peace accord is in the national interest of both nations. 
Protecting civil society, including human rights defenders and 
community leaders, from violence is essential to ensuring that the 
promise of the accord is fulfilled. U.S. assistance plays a key role in 
supporting implementation. If confirmed, I will continue to work with 
the Colombian Government to support the implementation of the peace 
accord.

    Question 101. What is your assessment of Wikileaks and its founder, 
Julian Assange?

    Answer. I am concerned about Julian Assange and Wikileaks' hostile 
activities and intent to undermine U.S. national security.

    Question 102. Do you believe that Wikileaks collaborated with the 
Russian Government to influence the 2016 U.S. election?

    Answer. I am aware of the ODNI's January 6, 2017, ``high 
confidence'' assessment that Russian efforts to influence the 2016 U.S. 
presidential election included the use of the Russian military's 
General Staff Main Intelligence Directorate (GRU) to relay U.S. victim 
data obtained in cyber operations to Wikileaks. I am also aware of that 
report's assessment that ``the Kremlin's principal international 
propaganda outlet RT (formerly Russia Today) has actively collaborated 
with WikiLeaks. The RT editor-in-chief visited WikiLeaks founder Julian 
Assange at the Ecuadorian embassy in London in August 2013, where they 
discussed renewing his broadcast contract with RT, according to Russian 
and Western media.'' I am also aware of media reports detailing Mr. 
Assange and Wikileaks' interference with the domestic politics of a 
number of other countries, including some of our allies.

    Question 103. What is your assessment of the Government of 
Ecuador's decision to provide asylum for Mr. Assange at its Embassy in 
London?

    Answer. The 2012 decision by the previous Government of Ecuador to 
provide asylum at its embassy in London for Mr. Assange, an Australian 
citizen, as he fought extradition to Sweden to stand trial for sex 
crimes, is a matter between the Ecuadorian and British Governments. I 
understand the current Government of Ecuador has been engaging with the 
British Government to find a solution to the issue. If confirmed, I 
will continue to raise our significant concerns regarding Mr. Assange 
with the Government of Ecuador at every available opportunity, 
including addressing his harmful activities and attempts to undermine 
the national security of the United States and our allies.

    Question 104. If confirmed, in your interaction with the Government 
of Ecuador, how would you address the issue of Mr. Assange's current 
asylum status in the Ecuadorian Embassy in London?

    Answer. If confirmed, I will continue to raise our significant 
concerns regarding Mr. Assange with the Government of Ecuador at every 
available opportunity, including addressing his harmful activities and 
attempts to undermine the national security of the United States and 
our allies.

    Question 105. If confirmed, do you commit to keeping Senate Foreign 
Relations committee Staff informed about your discussions with the 
Government of Ecuador about Mr. Assange?

    Answer. Yes, if confirmed, I will endeavor to keep the Senate 
Foreign Relations committee informed about my discussions with the 
Government of Ecuador regarding Mr. Assange.

    Question 106. Is there a link between this corruption and the 
violence and poverty that drive so many of these countries' citizens to 
migrate?

    Answer. I believe that corruption is a key enabling factor for all 
forms of crime and violence in the region. Corruption weakens 
democratic institutions, undermines the rule of law, impedes economic 
development, and contributes to the permissive environments that allow 
transnational criminal organizations to operate. If confirmed, I would 
remain committed to advance the principles of accountability, 
transparency and democratic governance.

    Question 107. What more can the U.S. Government do to support, 
train, and protect people in these countries who are revealing, 
investigating, and prosecuting corruption?

    Answer. Across the hemisphere, we are seeing a surge in support for 
anti-corruption efforts. If confirmed, I will work to take advantage of 
this momentum by ensuring that our diplomatic engagement and capacity-
building programs take a comprehensive approach to reducing corruption 
and protecting those who are revealing, investigating, and prosecuting 
corruption. If confirmed, I will work closely with civil society, the 
business community, and the interagency to assess which programs have 
proven successful and which offer the potential for future success. I 
also believe that a comprehensive approach should include pressing 
governments to improve mechanisms to protect investigators, 
journalists, and community leaders who are committed to battling 
corruption. Together, I believe our efforts to strengthen national 
institutions, international standards, engage civil society, and remain 
vigilant can strengthen representative democracy, the rule of law, and 
economic progress.

    Question 108. What steps would you take to decrease violence and 
murders of social activists, human rights defenders, ethnic minorities 
and journalists in the region?

    Answer. Around the world, human rights defenders, social activists, 
and journalists work tirelessly to protect human rights and fundamental 
freedoms, advocate for government transparency and accountability, 
promote rule of law, and expose corruption. They work in the face of 
mounting challenges including threats, harassment, intimidation, and 
physical attacks. If confirmed, I will continue to advance the U.S. 
commitment to the promotion and protection of human rights, and 
fundamental freedoms of all people. Within the Hemisphere, I will 
continue our collaboration with bilateral and regional stakeholders to 
strengthen protection mechanisms for activists, support for independent 
civil society, and deepen adherence to the rule of law so as to reduce 
impunity. If confirmed, I will use a wide range of tools to advance 
respect for human rights, including working with democratic partners, 
international and regional organizations to include the independent 
bodies of the Inter-American Human Rights System, civil society, and 
the private sector.

    Question 109. Why do you believe the United States' standing in the 
region has dropped?

    Answer. Our greatest asset in the Western Hemisphere is a shared 
vision for the future: we all want to live securely in democratic 
societies in which we can prosper. U.S. engagement with partners across 
the Western Hemisphere is based on longstanding cooperation around 
shared values and objectives.
    If confirmed, I will focus on expanding the security and economic 
prosperity of the United States and the Hemisphere and strengthening 
relationships with our partners based on common interests, goals, and 
values. I will work to translate our bilateral and regional 
partnerships into concrete initiatives that unlock increased stability, 
prosperity, and opportunities for the citizens of our countries.

    Question 110. What is the impact of such low approval ratings of 
U.S. leadership in the region?

    Answer. Our partnerships with countries across the Western 
Hemisphere are rooted in longstanding cooperation based on our shared 
values and objectives. The most pressing issue facing the Western 
Hemisphere is the restoration of democracy in Venezuela. Our diplomats 
have forged unprecedented consensus across the Americas in support of 
the Venezuelan people and repudiating the tyranny of Nicolas Maduro. 
Nations representing more than 90 percent of the Hemisphere's 
population have come together with the United States on this issue. If 
confirmed, I will work to strengthen and expand this consensus to 
defend democracy in our Hemisphere, based on our enduring shared values 
and vision for the future.

    Question 111. What is your assessment of our current public 
diplomacy programs in the region?

    Answer. Through robust public diplomacy, our embassies are 
advancing U.S. policy goals while building people-to-people 
relationships, which strengthen the ties between the United States and 
the countries of the Hemisphere. Current public diplomacy engagement 
emphasizes entrepreneurship, education, English language programs, and 
other policy-relevant exchanges to increase economic prosperity, 
security, and democracy in the Hemisphere. These programs have directly 
benefited the U.S. economy, promoted U.S. interests, and have led to 
strong networks of influential individuals who share our policy 
priorities and values and who serve as partners and allies in our 
efforts.

    Question 112. What public diplomacy initiatives will you pursue to 
recover U.S. standing in the Western Hemisphere?

    Answer. If confirmed, I will use our public diplomacy engagement to 
advance our priorities of increased security, prosperity, and democracy 
in the Western Hemisphere. Our embassies will conduct exchange programs 
that advance entrepreneurship and innovation, which build linkages 
between the United States and young business and social entrepreneurs 
across the Hemisphere. Under my leadership, if confirmed, the Bureau of 
Western Hemisphere Affairs will also continue to emphasize English 
language and education diplomacy to create networks of knowledge, 
connect and shape current and future generations of leaders, and 
increase academic exchange and workforce development the Americas. We 
will also use public diplomacy to promote people-to-people exchanges in 
order to build on the strong historical and cultural ties between the 
United States and the region.

    Question 113. Do you commit to fully funding and implementing 
public diplomacy programs in the region, including the many important 
exchange programs like the International Visitors Leadership Program 
that are strongly supported by Congress?

    Answer. Yes, if confirmed, I will fully support public diplomacy 
programs in the region, including important exchange programs such as 
the International Visitors Leadership Program. These programs expand 
the security and economic prosperity of the United States and the 
Hemisphere by strengthening our relationships with our partners based 
on common interests, goals, and values.

    Question 114. In the past decade, China has heavily increased its 
commercial ties and investments in the Western Hemisphere. Chinese 
President Xi Jinping has travelled three times to the region, and in 
2015, he announced a five-year plan to strengthen relations with Latin 
America that included reaching $500 billion in trade and $250 billion 
in foreign direct investment. While trade between the U.S. and Latin 
America has doubled since 2000, China's trade with the region has 
multiplied 22 times.

   Do you see China's increased commercial ties and investments in 
        Latin America as a U.S. security threat?

    Answer. While the United States remains the preferred trade and 
investment partner in the region, the sharp increase in China's 
engagement over the past decade presents challenges to U.S. national 
security and economic interests. If confirmed, working with the inter-
agency to devise a strategy to address rising Chinese influence in 
region will be a top priority. China's efforts to shape standards and 
trade rules to benefit Chinese companies run counter to U.S. interests 
in maintaining a rules-based international order. Further, China's lack 
of transparency in its investment practices and its poor adherence to 
free market principles can undermine the region's efforts to combat 
corruption. If confirmed, working with the inter-agency to devise a 
strategy to address rising Chinese influence in region will be a top 
priority.

    Question 115. In the past decade, China has heavily increased its 
commercial ties and investments in the Western Hemisphere. Chinese 
President Xi Jinping has travelled three times to the region, and in 
2015 he announced a five-year plan to strengthen relations with Latin 
America that included reaching $500 billion in trade and $250 billion 
in foreign direct investment.While trade between the U.S. and Latin 
America has doubled since 2000, China's trade with the region has 
multiplied 22 times.

   How do you propose the U.S. reinvigorate its commercial diplomacy 
        in order to maintain its competitiveness in the region?

    Answer. The United States is the top trading partner for more than 
half the countries in the region and sells more goods in the Western 
Hemisphere than to all Asian countries combined. If confirmed, I will 
seek ways to build upon our commercial diplomacy efforts in order to 
ensure the United States remains the region's partner of choice. I 
would start by fostering U.S. economic growth through fair and 
reciprocal trade and investment. If confirmed, I would also seek to 
improve the trade and investment climate for U.S. businesses in the 
region. This work would involve improving the transparency and 
accountability of procurement practices for investment, boosting 
protection of intellectual property rights, streamlining border 
clearance procedures, and modernizing free trade agreements. Finally, I 
would encourage a whole of U.S. Government approach to provide U.S. 
businesses and Latin American and Caribbean partners financing and 
project feasibility opportunities through the Overseas Private 
Investment Corporation, USAID's Development Credit Authority, and the 
U.S. Trade and Development Agency.

    Question 116. What is your assessment of the recent decision by the 
Dominican Republic and Panama to cut ties with Taiwan?

    Answer. I believe China's efforts to alter the status quo across 
the Taiwan Strait and undermine the framework that has enabled peace, 
stability, and development for decades are deeply concerning. I am 
disappointed that these two countries did not value this critical 
factor in their decision to switch diplomatic recognition.

    Question 117. Do you believe this is an indication of a larger 
trend in the region in which we will see more countries cutting ties to 
Taiwan?

    Answer. The United States continues to oppose unilateral actions by 
either side to alter the status quo across the Strait. With ten 
countries in the Western Hemisphere who recognize Taiwan, if confirmed, 
I will continue to reach out to partners in the region to reaffirm our 
position.

    Question 118. How does the Department of State help Taiwan in its 
efforts to curb China's attempt to bully countries in the regions into 
cutting ties with Taiwan?

    Answer. Per longstanding policy, the United States opposes 
unilateral actions by either side that alter the status quo across the 
Taiwan Strait. Switching diplomatic recognition is destabilizing to 
that delicate balance. It is my understanding that our embassies have 
underscored the importance of cross-Strait stability to the United 
States. If confirmed, I will also continue to caution countries in the 
Western Hemisphere that China's financing practices can come at a steep 
price for recipient countries in terms of the potential negative 
effects on local labor and environmental conditions, debt 
sustainability, and rule of law.

    Question 119. Do you commit to work with our allies in the region 
to curb this trend?

    Answer. If confirmed, I will work with our allies and partners in 
the region to continue our longstanding policy of opposing unilateral 
actions by either side that alter the status quo across the Taiwan 
Strait.

    Question 120. What are the most important actions you have taken in 
your career to date to promote democracy and human rights? What has 
been the impact of your actions?

    Answer. The promotion and defense of human rights and democracy is 
central to U.S. national security and prosperity. Throughout my career 
I have supported policies and approaches to foreign affairs that seek 
to support democracy and human rights. Supporting human rights can take 
many forms including calling out human rights violators, advocating for 
justice and accountability, and supporting programs to build capacity. 
During my career in policy work at the White House and the State 
Department as well as in my work at think tanks I have been involved in 
supporting and implementing policies in each of these areas. If 
confirmed I will continue to put the highest priority on support for 
democracy and human rights.

    Question 121. What issues are the most pressing challenges to 
democracy or democratic development in the WHA region? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Latin America has largely transformed over the past two 
decades from a region of military dictatorships and civil conflicts to 
one with vibrant, peaceful democracies. However, democracy in Latin 
America still faces the challenges of economic and social disparities, 
insecurity, corruption, attacks on civil society, and impunity. I 
believe that in some countries in the region, democracy is advancing, 
becoming more inclusive and institutionalized, and is delivering 
results. In others, we see important threats to representative 
democracy, including a trend toward incumbents seeking to rewrite 
constitutional rules to enable them to run for re-election and a 
disrespect for fundamental freedoms. Within individual countries, 
certain elements of democracy are consolidating, while other specific 
aspects such as democratic institutions and rule of law face security-
related stress. Narcotics traffickers, criminal gangs, and corrupt 
officials pose a threat to democracy, and they flourish where the rule 
of law is weak. Weak democratic institutions and the inability of 
governments to establish and maintain the rule of law contribute to the 
spread of transnational crime and corruption.

    Question 122. What steps will you take--if confirmed--to promote 
democracy in the region? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will engage with a full range of 
stakeholders including governments, regional organizations, civil 
society, the private sector, and the media to promote fundamental human 
rights and democracy. If confirmed, I will ensure U.S. policies and 
programs remain focused on strengthening democratic governance, rule of 
law, and equal access to justice. If confirmed, I will work to ensure 
our programs strengthen the capacity of our democratic partners to 
increase transparency and accountability and promote economic 
prosperity in their respective countries and the region. My objective 
would be to ensure that all citizens of the Hemisphere benefit from the 
fruits of democracy and economic development.
    Weak democratic institutions and the inability of governments to 
establish and maintain the rule of law hinder effective democratic 
governance and weaken the ability of governments to deliver the 
benefits of democracy and economic prosperity. If confirmed, I will 
ensure our efforts to build a secure, prosperous, and democratic 
hemisphere are supported by programs aimed at improving the rule law, 
good governance, and adhere to fundamental human rights and freedoms.

    Question 123. If confirmed, will you meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in the WHA region? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Around the world, civil society, non-governmental 
organizations (NGOs), and activists work tirelessly to protect human 
rights and fundamental freedoms, advocate for government transparency 
and accountability, promote rule of law, and expose corruption. They 
work in the face of mounting challenges, including threats, harassment, 
intimidation, and physical attacks. If confirmed, I will build on our 
long history of engaging leaders outside of government and meet with 
civil society, NGOs, and activists. I will encourage our embassies to 
also meet at all levels with civil society, NGOs, and activists to 
bring attention to the dangers facing civil society and advocate for 
their protection and empowerment. If confirmed, I will remain committed 
to ensuring that all of our diplomatic and programmatic engagement 
maintains its end goals of protecting civil society and human rights 
activists, supporting them to continue their important work and raising 
awareness of the legitimate and critical role these actors play in the 
functioning of healthy and robust democracies.

    Question 124. Will you, your staff, and embassy teams actively 
engage within the region on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in the region?

    Answer. A free and active press is an integral part of a healthy 
democracy. The Department of State is committed to supporting regional 
efforts to promote freedom of the press. If confirmed, I, along with my 
staff and our Embassy teams, will work together with countries 
throughout the Hemisphere to support press freedom and freedom of 
expression. Under my leadership, if confirmed, the Bureau of Western 
Hemisphere Affairs will continue to engage with independent local media 
in the region.

    Question 125. Will you, your staff and your embassy teams actively 
engage within the region on the right of labor groups to organize, 
including for independent trade unions? Will you and your embassy team 
engage political parties, and advocate for access and inclusivity for 
women and minorities?

    Answer. The region's labor movements have transformed in much of 
Latin America. Recognizing the important work of labor groups and trade 
unions in advancing worker rights, if confirmed, I will ensure my team 
remains engaged on labor issues and advocates at all levels for 
strengthening labor rights and advancing workplace democracy in the 
global economy.
    If confirmed, I will support social inclusion and work to address 
the disproportionate impact of violence, discrimination, and poverty on 
vulnerable groups, including people of African descent and indigenous 
peoples, women and girls, and lesbian, gay, bisexual, transgender, and 
intersex (LGBTI) persons. I will work to integrate these groups and 
their needs into processes that seek to combat crime and promote rule 
of law in order to further more inclusive and prosperous economies that 
ensure all members of society thrive.

    Question 126. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the region, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in the region? What specifically will you commit to do to help 
LGBTI people in the Western Hemisphere?

    Answer. In many parts of the world, LGBTI individuals and their 
supporters continue to face violence, arrest, harassment, and 
intimidation for standing up for their human rights, participating in 
peaceful marches and rallies, expressing their views, and simply being 
who they are. As Secretary Pompeo affirmed in his statement on the 
International Day Against Homophobia, Transphobia and Biphobia, ``the 
United States stands with people around the world in affirming the 
dignity and equality of all people regardless of sexual orientation, 
gender identity or expression, or sex characteristics. Human rights are 
universal, and LGBTI people are entitled to the same respect, freedoms, 
and protections as everyone else.'' If confirmed, I will promote the 
inclusion of LGBTI persons and support the Department's use of public 
and private actions to counter violence and discrimination against 
LGBTI persons. These include diplomatic outreach through bilateral and 
multilateral channels, offering emergency assistance to LGBTI persons 
and organizations at risk, and imposing visa restrictions and economic 
sanctions, as appropriate, against those who violate their human 
rights.

    Question 127. Do you commit to regularly consult with me and SFRC 
staff, as we discussed in our July 11, 2018 meeting?

    Answer. Yes. If confirmed, I am committed to keeping you and your 
staff regularly apprised of developments of interest to the committee, 
including through briefings and consultations by me and other WHA 
officials.

    Question 128. The Trump administration has utilized targeted Global 
Magnitsky sanctions against individuals in Nicaragua, Guatemala, and 
the Dominican Republic. However, the administration has not utilized 
the powerful tool against Cuban Government officials. If confirmed, do 
you commit to advocating for the use of targeted Global Magnitsky 
sanctions against Cuban official involved in human rights abuses and 
corruption, as we discussed in our July 11, 2018 meeting?

    Answer. If confirmed, I will consider all options, including use of 
Global Magnitsky sanctions, to address human rights abuses in Cuba. 
Where appropriate, I am committed to advocating for the use of targeted 
Global Magnitsky sanctions against officials involved in human rights 
abuses and corruption, as we discussed. The administration appreciates 
Congressional support for this powerful, versatile tool.

    Question 129. Despite evidence that the Government of Cuba 
conscripts Cuban doctors and health workers to participate in foreign 
medical missions under conditions that regularly resemble indentured 
servitude, the Trump administration has maintained Cuba on the Tier 2 
Watch List of its annual Trafficking in Persons Report. If confirmed, 
do you commit to promoting greater attention to this issue in next 
year's TIP report and a ranking that appropriately reflects this 
information, as we discussed in our July 11, 2018 meeting?

    Answer. Yes. Combatting trafficking in persons remains a key 
priority for this administration. If confirmed, I would work closely 
with the Department's Office to Monitor and Combat Trafficking in 
Persons to promote attention to the heinous crime of human trafficking, 
not only in Cuba, but throughout the Hemisphere.

    Question 130. Independent Cuban activists and human rights 
defenders have had limited access to U.S. visa services in Havana, 
while Cuban Government officials and participants in U.S. exchange 
programs are able to regularly secure visas from the U.S. Embassy in 
Cuba. Despite current staffing levels at the U.S. Embassy in Cuba, if 
confirmed, do you commit to provide my office with information related 
to the current state of visa services and advocate for independent 
activists and human rights defenders to have greater access to U.S. 
visa services in Havana, as we discussed in our July 11, 2018 meeting?

    Answer. If confirmed, I will work with my colleagues in the Bureau 
of Consular Affairs to provide your office with information related to 
the state of visa services in Havana. I will also support the access of 
independent activists and human rights defenders to U.S. visa services 
in Havana commensurate with staffing levels there.

    Question 131. I am currently working on bipartisan legislation to 
response to the multifaceted crisis in Venezuela. If confirmed, do you 
commit to working with my office to provide State Department input and 
comments on this bill, as we discussed in our July 11, 2018 meeting?

    Answer. Yes. If confirmed, I will work with my team in the Bureau 
of Western Hemisphere Affairs and with other offices at the State 
Department to ensure we provide timely and substantive comments to the 
bill. I look forward to working with you and your staff to help 
peacefully resolve the political, economic, social, and humanitarian 
crises in Venezuela.

    Question 132. Concurrent with your nomination to be Assistant 
Secretary for Western Hemisphere Affairs, you have been nominated to 
the Board of the Inter-American Foundation (IAF,) an independent U.S. 
development assistance agency that supports citizen-led initiatives and 
creates alternatives to migration, the drug trade, crime, unemployment, 
exclusion and corruption in Latin America and the Caribbean. The IAF 
has a long history of strong Congressional bipartisan and bicameral 
support. What is your assessment of the IAF's grassroots development 
work in the region?

    Answer. The Inter-American Foundation (IAF) provides small grants 
to citizen-led organizations to build the capacity of local actors and 
promote the sustainability of development efforts. If confirmed, I look 
forward to being fully briefed on IAF's on-going development work and 
how I can advance U.S. efforts in that important body.

    Question 133. During fiscal years 2018 and 2019, the current 
administration recommended the elimination of the IAF as an independent 
agency. Congress has signaled in both fiscal years that it does not 
support the elimination of the agency; and greatly values the IAF's 
contributions to U.S. development and foreign policy interests in the 
LAC region. If confirmed to the IAF's Board of Directors, will you work 
to preserve the IAF as an independent agency and protect and further 
its mission?

    Answer. If confirmed as Assistant Secretary, I will carry out all 
duties of the position, including serving on the IAF's Board of 
Directors and work in partnership with federal and independent agencies 
working to advance our national security and foreign policy interests 
of the United States. If confirmed, I am committed to implementing U.S. 
appropriations law with regard to the IAF.

    Question 134. In multiple briefings provided by for the Senate 
Foreign Relations committee by the Bureaus for Western Hemisphere 
Affairs, International Narcotics and Law Enforcement Affairs, and 
International Organizations, as well as the U.S. Mission to the United 
Nations, State Department officials have indicated that there is no 
known evidence that the Russian Government has interfered with or 
unduly influenced the work of the United Nations International 
Commission Against Impunity in Guatemala (CICIG), or colluded with 
CICIG officials. Do you agree with this assessment provided to the 
Senate Foreign Relations committee by various offices of the State 
Department?

    Answer. I take allegations of Russian influence seriously, and if 
confirmed commit to personally reviewing all available information 
related to the case in question.

    Question 135. Former U.S. Government officials and Guatemalan 
Government officials, across multiple administrations representing 
multiple parties, have repeatedly reaffirmed the importance of CICIG as 
an invaluable tool for combatting corruption and impunity in Guatemala. 
Do you believe that CICIG has made positive contributions to combatting 
corruption and impunity in Guatemala?

    Answer. Yes. The United States provides funding to International 
Commission against Impunity in Guatemala (CICIG) for its important 
mission to combat corruption and impunity and strengthen Guatemala's 
justice sector. I understand the Department, USAID, and the U.S. 
Mission to the United Nations (USUN) have met to discuss options for 
ensuring oversight and reform of CICIG that can strengthen the 
commission and preserve its important, independent mandate, and I 
understand these will be presented to Secretary Pompeo.

    Question 136. In your statement, you mentioned the administration's 
Caribbean 2020 Strategy which you described as looking ``to foster 
security and prosperity in a region important to our interests.'' While 
the strategy as written is very impressive, its implementation--a full 
year after it was sent to Congress--leaves much to be desired.

   For each of the areas in the Caribbean 2020 Strategy (security, 
        diplomacy, prosperity, energy, education and health), please 
        provide the committee with a timeline of what steps you would 
        take to specific policy actions.

    Answer. In the context of Caribbean 2020, upcoming plans for 
further diplomatic engagement include an annual consultative meeting 
with Caribbean leaders. If confirmed, I will continue our commitment to 
the Caribbean Basin Security Initiative (CBSI) and will prioritize 
maritime security and counter-narcotics; law enforcement capacity 
building; community engagement in youth crime and violence prevention 
activities; and positive alternatives for at-risk youth. In order to 
highlight private sector engagement and sustainable growth, the 
Department will work with partners in the Caribbean to organize the 
second Prosperity Roundtable in late 2018.
    The Department approved the Caribbean Energy Security Initiative 
(CESI) Guarantee Program on March 19, and is moving to implement it 
during the next year. The CESI Guarantee Program will leverage at least 
$300 million in lending to stimulate investment in the energy sector in 
Caribbean countries. On education, if confirmed, I will work to build 
stronger partnerships between U.S. and Caribbean higher education 
institutions and advance cooperation on entrepreneurship and technical 
and vocational skills. Finally, in the health field the Department is 
working with community leaders to design and install rainwater 
harvesting systems in Saint Lucia, supporting the American Red Cross in 
promoting disaster management skills training in the Eastern Caribbean, 
and working with the Organization of American States to bolster 
resiliency among small business in the Caribbean tourism sector. The 
Department is also joining with Caribbean diaspora partners and the 
Department of Health and Human Services to support universal compliance 
with international health regulations to prevent the spread of Zika in 
Barbados and the Eastern Caribbean.

    Question 137. In your statement, you mentioned the administration's 
Caribbean 2020 Strategy which you described as looking ``to foster 
security and prosperity in a region important to our interests.'' While 
the strategy as written is very impressive, its implementation--a full 
year after it was sent to Congress--leaves much to be desired.

   The Strategy states, ``We will hold a trade and investment 
        conference with Caribbean countries focused on increasing 
        bilateral trade and improving the region's investment climate 
        and regulatory environment.'' When and where will advocate that 
        this conference take place?

    Answer. Since the Department held its first Caribbean Prosperity 
Roundtable in November 2017 with Caribbean policymakers and private 
sector representatives to spur economic development and trade, the 
Department has worked to ensure reconstruction efforts result in 
resilient, cost-effective energy systems. Plans are underway to host a 
second Caribbean Prosperity Roundtable in the region later this year.

    Question 138. In your statement, you mentioned the administration's 
Caribbean 2020 Strategy which you described as looking ``to foster 
security and prosperity in a region important to our interests.'' While 
the strategy as written is very impressive, its implementation--a full 
year after it was sent to Congress--leaves much to be desired.
    The Strategy states, ``Were funding to become available in the 
future, the Department could explore expanding its diplomatic and 
consular presence in Eastern Caribbean countries that do not currently 
host a permanent U.S. diplomatic mission.'' In anticipation of funding 
becoming available, please provide the committee with a detailed plan 
on how the U.S. could expand our diplomatic and consular presence in 
the Eastern Caribbean.

    Answer. Embassy Barbados constitutes the United States' diplomatic 
and security presence in the Eastern Caribbean, with support from the 
U.S. Embassy in Grenada and the U.S. Consular Agency in Antigua and 
Barbuda. Official personnel based in Embassy Barbados travel frequently 
to engage with government officials and other host nation interlocutors 
in all Eastern Caribbean countries to advance and defend bilateral and 
regional U.S. foreign policy goals. The State Department remains 
focused on ensuring that it actively promotes U.S. interests from this 
platform and if confirmed, I would use funds to maintain and strengthen 
the Department's ability to continue to do so. Any decisions on a 
future expansion of our diplomatic and consular presence in the Eastern 
Caribbean would be premised on which countries would best support the 
protection of U.S. citizens and advancement of U.S. interests not only 
bilaterally, but also regionally.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Kimberly Breier by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The promotion and defense of human rights and democracy is 
central to U.S. national security and prosperity. Throughout my career 
I have supported policies and approaches to foreign affairs that seek 
to support democracy and human rights. Supporting human rights can take 
many forms including calling out human rights violators, advocating for 
justice and accountability, and supporting programs to build capacity. 
During my career in policy work at the White House and the State 
Department as well as in my work at think tanks I have been involved in 
supporting and implementing policies in each of these areas. If 
confirmed I will continue to put the highest priority on support for 
democracy and human rights.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will support diversity in the Bureau of 
Western Hemisphere Affairs. I have experience and government training 
in diversity and inclusion as well as extensive experience in my prior 
government service in mentoring up-and-coming staff. If confirmed, I 
will explore the possibility of creating a new mentoring program in the 
Bureau, and will seek opportunities to mentor foreign and civil service 
officers, particularly through example to help aspiring women overcome 
obstacles to their success.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of Western Hemisphere Affairs are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, when interviewing candidates for senior 
positions in the Bureau of Western Hemisphere Affairs I will make it a 
priority to ensure all candidates affirm their support for a diverse 
and inclusive workplace and then will monitor that commitment among 
staff. If confirmed, I will take immediate action in cases where 
discrimination or bias is reported to me.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio consists of diversified mutual 
funds and de minimis interests. The diversified mutual funds are exempt 
from the conflict of interest laws, as are my other investments because 
of their size. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest and I will remain vigilant with 
regard to my ethics obligations.

    Question 7. As I mentioned in your hearing, in 2015, Marylander 
Alex Villamayor was brutally raped and murdered in Paraguay. After 
years of mismanagement and delays, guilty verdicts were recently handed 
down in his case.

   As Assistant Secretary, in future cases involving American citizens 
        will you apply diplomatic pressure to accept FBI assistance 
        sooner, and review how the State Department treats cases where 
        American citizens are slain or assaulted abroad.

    Answer. If confirmed, I commit to working closely with our 
interagency partners to ensure host governments understand the benefit 
of accepting our technical assistance to fully investigate U.S. citizen 
deaths overseas. The United States enjoys strong cooperation in law 
enforcement and security with our partners in the Western Hemisphere, 
and in the past, the U.S. Government has provided technical assistance 
and training for judges, prosecutors, and police to many of them. If 
confirmed, I will engage with the relevant authorities to offer all 
appropriate technical assistance that might help achieve a thorough, 
impartial investigation and a fair trial in these cases.

    Question 8. President Trump's statements and policies on issues 
such as immigration and trade have been received poorly, to say the 
least, throughout the hemisphere, as has been reflected in various 
polls and studies. The Gallup's 2017 World Poll, for example, showed 
only a 16 percent approval rating of President Trump in Latin America. 
The poll also highlighted that Latin Americans expect relations to 
worsen rather than improve over time.

   To what do you attribute the marked increase in negative views in 
        the Western Hemisphere of U.S. leadership over the past year, 
        and what specific steps will you take to help reverse those 
        views?
   To what extent do you think negative perceptions of the Trump 
        administration have impacted, or will impact, other nations' 
        willingness to cooperate with the United States?

    Answer. The United States' greatest asset in the Western Hemisphere 
is a shared vision for the future: we all want to live securely in 
democratic societies in which we can prosper. U.S. engagement with 
partners across the Western Hemisphere is based on longstanding 
cooperation around shared values and objectives.
    If confirmed, I will focus on expanding the security and economic 
prosperity of the United States and the Hemisphere and strengthening 
relationships with our partners based on common interests, goals, and 
values. I will work to translate our bilateral and regional 
partnerships into concrete initiatives that unlock increased stability, 
prosperity, and opportunities for the citizens of our countries.
    The most pressing issue facing our hemisphere is the restoration of 
democracy in Venezuela. Our diplomats have forged unprecedented 
consensus across the Americas in support of the Venezuelan people and 
repudiating the tyranny of Nicolas Maduro. Nations representing more 
than 90 percent of the Hemisphere's population have come together with 
the United States on this issue. If confirmed, I will work to 
strengthen and expand this consensus to defend democracy in our 
Hemisphere, based on our enduring shared values and vision for the 
future.
Trade (Tariffs, NAFTA)
    Question 9. The administration announced recently that it is moving 
forward with steel and aluminum tariffs on Canada and Mexico (as well 
as Europe), with the possibility of additional future tariffs. The 
President has been aggressive in his efforts to re-negotiate NAFTA, and 
pulling out of TPP angered our neighbors who are party to the 
agreement. There is no question that these actions have turned U.S. 
trade and bilateral relationships in the region upside down and 
disrupted the investment markets in the region.

   What is your view of these actions and the potential impact on U.S. 
        businesses?
   How are they impacting our relationships to regional economic 
        partners like Canada and Mexico?
   Are you concerned about the rhetoric the president and his aides 
        have used against the Canadian prime minister?
   To what extent are these actions affecting other aspects of U.S. 
        relations with our regional partners?
   What are the prospects for reaching a renegotiated NAFTA agreement 
        before Mexico's July 1, 2018 elections? If an agreement is not 
        reached by that time, what are prospects for negotiating with 
        Mexico's next government?

    Answer. The United States, Canada, and Mexico remain close partners 
and share a wide variety of common interests. If confirmed, I will 
continue to build upon our existing relationships and extensive areas 
of mutual cooperation. The relationships with our neighbors have 
withstood tests before and they will withstand them now. The 
application of the steel and aluminum tariffs does not foreclose the 
possibility of arriving at alternative agreements with Canada and 
Mexico to exempt them in the future. If confirmed, I will continue to 
work with our partners to address global excess production of steel and 
aluminum. I will also continue to support our efforts in the ongoing 
NAFTA re-negotiation process that seeks to rebalance and upgrade our 
agreement. An updated agreement will benefit all Americans, including 
workers, farmers, ranchers, manufacturers, and service providers.

    Question 10. I recognize that you believe that TPS was designed to 
be temporary, not for 20 years, that the original conditions don't 
exist anymore, but why didn't the administration follow the 
recommendations of the Embassy staffs in Haiti, El Salvador and 
Honduras that maintaining TPS was in the U.S. national security 
interest?

    Answer. The Temporary Protected Status (TPS) statute provides the 
executive branch with the authority to offer temporary protection from 
removal for individuals from countries experiencing armed conflict, 
environmental disaster, or other extraordinary and temporary conditions 
that prevent their citizens from returning in safety. Any extension of 
an existing TPS designation must be tied to the original reason for 
designation. The statute explicitly states that if a TPS country no 
longer continues to meet the conditions for designation, the 
designation shall be terminated. The statute further provides for 
limitations on consideration of legislation providing a pathway to 
lawful permanent resident status for TPS beneficiaries, indicating a 
Congressional intent to underscore the temporary nature of the program. 
While U.S. foreign policy and economic interests may lead Congress to 
reconsider the future legal treatment of long-term TPS beneficiaries, 
the statute does not allow the executive branch to extend TPS 
designations on these bases.
    The Department's internal TPS review process is comprehensive and 
well established. It involves input from the relevant regional bureau 
and U.S. embassy in the TPS country under review, the Bureau of 
Population, Refugees, and Migration (PRM), and the Office of the Legal 
Adviser. Additional offices that review and contribute to the process 
include the Secretary's Policy Planning Staff, the Office of the Deputy 
Secretary, and the Office of the Undersecretary for Political Affairs. 
In these cases, the regional bureaus review Embassy cables from their 
region and factor the views of Posts into their decision-making.
    The authority to make decisions regarding TPS resides with DHS, 
after consultation with appropriate agencies. With respect to the 
decisions on the countries mentioned, DHS consulted with the Department 
of State to determine whether the conditions under the applicable 
statute continued to be met.

    Question 11. Do you believe the Haitian, Salvadoran, and Honduran 
Governments will be able to safely absorb TPS returnees when their 
designations expire? Are we looking to scale up specific programming in 
TPS returnee home countries to support their return?

    Answer. I understand the Department of Homeland Security decided on 
a delayed effective termination date of 18 months for El Salvador, 
Honduras, and Haiti to permit an orderly transition for individuals 
returning home and the country receiving them. If confirmed, I will 
ensure the Department works closely with USAID to continue its work 
with governments in the region to strengthen their ability to 
reintegrate their returning nationals, including Temporary Protected 
Status (TPS) returnees. If confirmed, I will also ensure the Department 
provides consular services to U.S. citizen children and spouses of TPS 
beneficiaries.
China and Russia
    Question 12. In then-Secretary Tillerson's recent trip to Latin 
America in February, he warned about the activities of both China and 
Russia in Latin America. This committee issued a Minority Report on 
Russia in January, which I commissioned, that highlighted Russia's 
activities in Mexico. Russia has also been friendly with the Maduro 
regime-Putin congratulated Maduro on his election. China has taken a 
similar posture.

   What is your view of the growth of Chinese and Russian activities 
        and engagement in Latin America?
   How do the activities of the two countries in the region differ?
   What U.S. policy measures would you recommend regarding China and 
        Russia in Latin America?

    Answer. The United States remains the diplomatic, economic, and 
security partner of choice for the majority of the Western Hemisphere. 
If confirmed, I am committed to advancing democratic governance and 
strengthening our work with partners in the region. I will continue to 
encourage investment and trade in the Western Hemisphere that 
incorporates long-standing international best practices in 
transparency, anti-corruption, debt sustainability, and labor rights, 
and respects the needs and concerns of local communities in order to 
ensure more secure and lasting economic and social dividends.
    Since 2014, we have seen Russian engagement in the hemisphere 
increase, albeit from a very low baseline. Russia's strongest 
relationships in the Western Hemisphere are with Venezuela, Nicaragua, 
Bolivia, and Cuba. Russia has also expanded its media presence in the 
hemisphere through Spanish and Portuguese versions of Sputnik and RT. 
If confirmed, I would remain vigilant of Russian involvement in the 
security sector and of any expansion of Russian-sponsored 
disinformation campaigns in the region.
    China's engagement in the Western Hemisphere has increased over the 
last decade as China has sought access to natural resources and 
markets, stronger trade relations, tourism opportunities, and 
infrastructure investments. We are committed to promoting economic 
development, prosperity, transparency, and good governance throughout 
the Western Hemisphere. If confirmed, I would continue to press that 
China's economic engagement meet high standards in terms of 
transparency, adherence to anti-corruption standards, debt 
sustainability, labor rights, environmental stewardship, and the needs 
and concerns of local communities.

                           Public Corruption

    Question 13. In recent years, high-profile corruption scandals in 
Latin America have contributed to the resignation or removal from 
office of several presidents, including most recently Peru's president, 
and have galvanized civil society activism.

   Which U.S. assistance programs or other policy tools have been the 
        most effective in helping to reduce corruption by public 
        officials?
   Are there other ways you would support tackling this issue in Latin 
        America such as the Corruption Index bill we discussed?
   How is corruption factoring into elections and appointments, such 
        as the upcoming (July 1) elections in Mexico and Attorney 
        General appointments in the northern triangle countries?

    Answer. Across the hemisphere, a regional anti-corruption movement 
is growing, and that public opinion polls and street demonstrations 
exemplify increased intolerance of corruption within the region. In 
Mexico, for example, combating corruption has emerged as a key campaign 
issue in the July 1 presidential, gubernatorial, and legislative 
elections.
    If confirmed, I will work to take advantage of this momentum by 
ensuring that our diplomatic engagement and capacity-building programs 
take a comprehensive approach to the problem. Working closely with 
civil society, the business community, and the United States 
Government, I will support efforts to improve program success, 
including the careful examination of the Corruption Index bill.
    I believe that a comprehensive approach that includes United States 
assistance and policy tools should also include pressing governments to 
improve mechanisms to share information to combat money laundering, 
improve visa regulations, and control of offshore and shell companies. 
If confirmed, I will also encourage governments to enhance transparency 
wherever possible to include reducing red tape, increasing online 
services where citizens initiate government transactions, and reducing 
bureaucracy.

                            Global Magnitsky

    Question 14. I applaud the administration for adopting the Global 
Magntisky law, including with an expansive Executive Order. The next 
round of sanctions will be announced this summer, and I was pleased to 
recently see the sanctioning of Dominican Republic Senator Bautista 
under Global Magnitsky.

   Are you prepared to ensure full vetting of possible cases in the 
        region, even in governments that are right of center and 
        `supposedly' aligned with U.S. interests (i.e. Honduras, 
        Nicaragua)?

    Answer. Yes. I am committed to protecting and promoting human 
rights and combatting corruption with all of the tools at the 
Department's disposal. We must lead by example and, if confirmed, I 
will pursue tangible and significant consequences for those who commit 
serious human rights abuses and engage in corruption.

                              Rule of Law

    Question 15. I recently participated in a forum at the Woodrow 
Wilson center on Rule of Law promotion where we discussed the 
challenges with promoting rule of law globally and in the Western 
Hemisphere region.

   What are your goals for addressing rule of law challenges in the 
        region?
   What challenges and opportunities exist in the human rights, anti-
        corruption, and governance space?
   How do violence and trafficking activities exacerbate rule of law 
        challenges in the region?
   How can the interagency -State, USAID, Dept. of Defense, Department 
        of Justice, etc.--better coordinate on regional programing to 
        address rule of law challenges in the region?

    Answer. If confirmed, I will ensure that strengthening and 
extending the rule of law continues to be a critical component of our 
diplomatic engagement and capacity-building efforts across the region. 
If confirmed, I will also target our assistance programs and partner 
government actions to address the full range of factors contributing to 
the permissive environment that criminals exploit, ranging from 
strengthening community resilience to improving law enforcement 
capacity and enhancing judicial processes.
    The promotion and defense of human rights is central to U.S. 
national security and prosperity. If confirmed, I would continue to 
advance the U.S. commitment to the promotion and protection of human 
rights and fundamental freedoms of all people. Within the Hemisphere, I 
would continue our collaboration with bilateral and regional 
stakeholders to strengthen protection mechanisms for activists, support 
for independent civil society, and deepen adherence to the rule of law 
to reduce impunity. If confirmed, I would use a wide range of tools to 
advance respect for human rights, including working with democratic 
partners; international and regional organizations to include the 
independent bodies of the Inter-American Human Rights System; civil 
society; and the private sector.
    I understand that corruption inflicts substantial costs upon the 
economy, society, security, and saps confidence in rule of law, a 
driver of migration in the Western Hemisphere. However, across the 
hemisphere, we are seeing a truly regional anti-corruption movement, 
and if confirmed, I will work to take advantage of this momentum by 
taking a comprehensive approach to the problem.
    I also understand violence associated with criminal activity is a 
major obstacle exacerbating efforts to improve governance, encourage 
prosperity, and enhance the rule of law. Trafficking, whether it be in 
illegal drugs, people, gold, or wildlife, helps finance criminal 
organizations, and I recognize that in certain countries a broad and 
comprehensive approach requires high levels of interagency 
coordination. If confirmed, I will ensure that we have adequate 
mechanisms across all key stakeholders and across all missions to 
strengthen the rule of law. I believe that deep and continuous 
interagency review and analysis at both the program and policy level is 
necessary for success.

                              Human Rights

    Question 16. There have been numerous attacks against journalists 
in the region. The journalist death toll in Mexico is a particularly 
troubling, but violence against journalists and murders have occurred 
at an alarming rate across the region from Guatemala to Haiti, 
Honduras, Nicaragua, to name just a few. In your view, why is this 
occurring? What is the U.S. doing to get pressure governments in the 
region to protect journalists, as well as civil and human rights 
activists, and ensure those behind the attacks are brought to justice?

    Answer. Respect for human rights is fundamental, and a free and 
active press is an integral part of a healthy democracy. I am deeply 
distressed by the killings of journalists and human rights activists, 
which have undermined freedom of speech, freedom of association, and 
security in the region.
    The Department of State is committed to supporting efforts to 
increase respect for human rights and press freedom, as defining 
features of democracy. If confirmed, I will work together with other 
countries throughout the Hemisphere to promote respect for human rights 
and the rule of law and end impunity. We will continue to call on local 
and federal authorities to investigate and prosecute those responsible 
for crimes against journalists and human rights activists wherever they 
occur.

    Question 17 There is no doubt that the Honduran police and military 
have committed atrocious crimes against innocent civilians. The Berta 
Caceres case is just one tragic example of why human rights advocates 
across the globe have highlighted the connection between indigenous 
rights, rule of law, corruption, and security sector abuse in Honduras. 
I have long called for conditioning certain aid to advance rule of law 
and human rights, and I acknowledge that your government did seek 
justice in the Caceres case, having made at least nine arrests. 
However, some, including CASA de Maryland and Members of Congress have 
called for an end to all non-humanitarian U.S. assistance provided 
directly to the Honduran Government, especially the police and military 
given widespread corruption and abuse.

   What are your views on this?
   Do you think completely withholding funds would change the behavior 
        of the Honduran security sector?
   Has conditioning the aid helped improve the rights situation in any 
        way thus far?

    Answer. I agree that Honduras continues to face serious human 
rights challenges and, if confirmed, will continue to prioritize human 
rights issues. I understand U.S. assistance to Honduras directly 
supports programs and institutions to effectively address human rights 
in Honduras, such as impunity, public sector corruption, weak 
government institutions, and drug trafficking and transnational gang 
activities.
    The congressional certification criteria outline the effective 
steps Honduras must take to develop its judicial system, protect human 
rights defenders, increase inclusive economic growth and development, 
and enhance the capacity and transparency of Honduran institutions. I 
believe addressing the security and developmental challenges in 
Honduras will require sustained U.S. assistance that balances security 
with development. Equally important will be significant political will 
and resources from Honduras. As we press for full accountability of 
Honduran institutions, U.S. assistance through the U.S. Strategy for 
Central America aims to support Honduran efforts to strengthen the rule 
of law and build stronger, more professional government institutions. 
These efforts are critical to protecting human rights and reducing 
impunity.
    I understand the Department is working to help Honduran authorities 
develop a professional, credible, and effective police force that is 
free of corruption and upholds the rule of law. Properly trained and 
vetted civilian police are the most important long-term solution to 
maintaining public security in Honduras and elsewhere. It will take 
time for Honduras to institutionalize its ongoing efforts to reform its 
national police. Sustained U.S. assistance is important to achieving 
long-term, institutional reforms.

    Question 18. The U.S. Congress has repeatedly called for the 
removal of the Honduran Armed Forces from domestic policing. You 
yourself have in the past promised to do so, and established time lines 
for withdrawal. Yet the military remains today more present in domestic 
policing than ever, with continuing deadly effects.

   If confirmed, what efforts would you make to pressure the Honduran 
        Government to remove the military from domestic policing?

    Answer. I understand that the Department does not provide foreign 
assistance funds to Honduran military engaged in domestic policing. The 
Honduran Government is aware of this policy. If confirmed, I will 
reinforce the Department's long-standing position that policing is best 
done by civilian police who are properly trained and equipped, and I 
will continue to support Honduran efforts to reform its national 
police. I understand the Department provides foreign assistance to help 
develop a professional, accountable, and effective civilian police 
force that upholds the rule of law. I view this support as critical to 
the Honduran Government's efforts to professionalize and reform its 
police force. If confirmed, I will support U.S. assistance to 
strengthen law enforcement in Honduras.

                               Venezuela

    Question 19. As certain policymakers are seeking to isolate 
Venezuela, it is important to keep the door open for a diplomatic, 
negotiated solution to the crisis.

   If confirmed, what posture will you take regarding meeting with the 
        Venezuelan Government?

    Answer. Diplomats often must meet with leaders with whom we 
disagree in efforts to advance U.S. interests and national security. 
While economic pressure and international isolation are important steps 
toward a peaceful resolution of the crisis, if confirmed, I would also 
be prepared to engage with the Venezuelan Government if there were 
strong indications discussions would be productive and conducted in 
good faith.

    Question 20. Given the Trump administration's efforts to reverse 
President Obama's actions to open U.S. relations with Cuba, some U.S. 
businesses are at risk of losing out on important opportunities.

   If you are confirmed as Assistant Secretary, will you work to 
        ensure that any additional Trump administration actions will 
        not adversely impact U.S. business interests on the island?

    Answer. If confirmed, I will continue to ensure that any engagement 
between the United States and Cuba advances the interests of the United 
States, as directed by the National Security Presidential Memorandum 
``Strengthening the Policy of the United States Toward Cuba,'' 
including U.S. business interests.

    Question 21. In response to unexplained injuries of U.S. personnel 
at the U.S. Embassy in Havana, the State Department ordered the 
departure of nonemergency personnel from Cuba in September 2017, and 
subsequently ordered the departure of 15 Cuban diplomats from the Cuban 
Embassy in Washington, DC.

   What has been the effect of the downsizing of State Department 
        staff in Havana on visa processing at the U.S. Embassy?
   To what extent has the downsizing affected other diplomatic 
        activities in Cuba, such as outreach to human rights activists 
        and political dissidents?

    Answer. Given Embassy Havana's limited staffing, Post's ability to 
conduct direct outreach to human rights activists and political 
dissidents in Cuba is significantly constrained. However, the 
Department continues to monitor and advance human rights developments 
in Cuba, consistent with the June 2017 ``National Security Presidential 
Memorandum on Strengthening the Policy of the United States Toward 
Cuba,'' in Washington, in Cuba, and in third countries. The U.S. raises 
concerns with the Cuban Government, including in the June 14 U.S.-Cuba 
Bilateral Commission meeting, and with other countries and in 
international fora; and, along with the U.S. Agency for International 
Development, administer the annual Congressional appropriation of 
economic support funds supporting democracy programs in Cuba. The 
Department also continues to call out the Cuban regime's enduring 
repression of its citizens and its recent undemocratic leadership 
transition. Due to the drawdown, only diplomatic nonimmigrant visa 
applications and nonimmigrant cases for applicants with life-
threatening illness may be processed at U.S. Embassy Havana. U.S. 
consular officials have begun conducting immigrant visa interviews for 
Cuban nationals at U.S. Embassy Georgetown, Guyana. The United States 
supports efforts by Cuban human rights defenders to obtain non-
immigrant visas outside of Cuba.

    Question 22. How do you see the Guatemalan embassy in Israel's move 
to Jerusalem impacting U.S.-Guatemalan relations?

    Answer. The United States has expressed its appreciation to 
Guatemala for its support on Israel in the United Nations and welcomed 
the move of the Guatemalan embassy to Israel from Tel Aviv to 
Jerusalem. The United States has long-maintained a friendly bilateral 
relationship with Guatemala and, if confirmed, I will aim to continue 
our close collaboration with the Guatemalan Government to advance the 
U.S. Strategy for Central America in Guatemala.

    Question 23. What are your views of CICIG? What role do you expect 
the new Attorney General to have with CICIG? Do you see corruption as a 
priority issue to be investigated in Guatemala?

    Answer. Anti-corruption efforts in Guatemala will be a priority for 
me, if confirmed. The United States provides funding to International 
Commission against Impunity in Guatemala (CICIG) for its important 
mission to combat corruption and impunity and strengthen Guatemala's 
justice sector. The Department, USAID, and the U.S. Mission to the 
United Nations (USUN) have met to discuss options for ensuring 
oversight and reform of CICIG that can strengthen the commission and 
preserve its important, independent mandate, and I understand these 
will be presented to Secretary Pompeo. If confirmed, I look forward to 
engaging Guatemala's new attorney general Mar!a Consuelo Porras Arqueta 
to continue her government's efforts against corruption and support for 
CICIG's mission. A strong attorney general is an integral part of the 
fight against corruption, impunity, and transnational criminal 
organizations. Corruption and impunity enable illicit networks and 
affect the ability of U.S. companies to do business in Guatemala. 
Measurable progress on combatting transnational criminal organizations 
requires significant progress in combatting corruption.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Kimberly Breier by Senator Jeanne Shaheen

    Question 1. On May 7, 2018, Attorney General Sessions announced 
that the Justice Department would begin prosecuting every person who 
illegally crosses into the United States along the southern border, 
even if they attempt to seek asylum. This unprecedented policy has 
resulted in parents being separated from their children. What is your 
opinion of this policy? How do you think it will be viewed in Latin 
America, and what effect will it have on our relations with countries 
in that region?

    Answer. No one wishes to see family members separated from each 
other. If confirmed I will do everything within my sphere of influence 
to help address the root causes of this situation in the countries of 
origin. It is my understanding the Department works with countries in 
the region to ensure migration is well managed and legal. This includes 
improving border controls, combatting human smuggling and trafficking 
networks, and improving the capacity of countries to receive and 
reintegrate their citizens who have been returned from the United 
States and other countries.
    It is also my understanding U.S. programs in Central America 
address the underlying causes of security, governance, and economic 
drivers of illegal immigration and illicit trafficking. We also work 
jointly with Mexico in Central America to strengthen security 
conditions and promote prosperity. If confirmed, I will ensure that we 
continue to carry out that policy.

    Question 2. The Russian Government has sought to undercut U.S. 
sanctions against Venezuela. What has the administration done to 
challenge the Kremlin over its support to the Maduro regime? If 
confirmed, what steps would you consider to do so?

    Answer. My understanding is that Russia has lent approximately $5 
billion to Venezuela in exchange for oil. Media reports indicate 
Venezuela's state oil company, PDVSA, and Russia's state oil company, 
Rosneft, continue to make new deals, despite objections from the 
Venezuelan National Assembly. I understand Russian experts and banks 
were also involved in the Maduro regime's brazen attempt to circumvent 
U.S. financial sanctions with the launch of the ``petro'' and other 
digital currencies, which the administration sanctioned on March 19.
    If confirmed, I will ensure the Department continues working with 
the interagency and our international partners to support Venezuela's 
return to a democratic, stable, and prosperous country and isolate 
those who are not working to bring the Maduro regime to the negotiating 
table, including Russia. I understand our Venezuela-related financial 
sanctions have prevented Russian energy companies from restructuring 
Venezuelan debt through the U.S. financial system. If confirmed, I will 
prioritize these efforts and continue the Department's use of all 
diplomatic and economic tools in coordination with the interagency, the 
international community, and regional partners, to support the 
Venezuelan people's efforts to restore a stable, prosperous, and 
democratic country.

    Question 3. Apart from sanctions, what other policy options are 
available to the United States and the international community to 
support human rights and democracy in Venezuela?

    Answer. The Maduro regime is eroding human rights guarantees and 
intimidating, persecuting, criminally prosecuting, torturing, or 
forcing into exile political critics as a means of keeping a 
stranglehold on power in an increasingly dire situation. The Venezuelan 
Government has politicized the judiciary to undermine the legislative 
branch and has curtailed freedom of expression and of the press. If 
confirmed, I will continue the Department's use of all diplomatic tools 
in coordination with the interagency, the international community, and 
regional partners, to support the Venezuelan people's efforts to 
restore a stable, prosperous, and democratic country.

    Question 4. According to media reports, the then-U.S. Ambassador to 
Mexico, Roberta Jacobson, was not invited to a meeting, which you 
reportedly attended, between senior White House adviser Jared Kushner 
and Mexican President Enrique Pena Nieto in Mexico City on March 7, 
2018. What role, if any, did you play in the decision not to include 
Ambassador Jacobson in this meeting? Do you believe it is important, as 
a matter of standard practice, to include U.S. Ambassadors in meetings 
with senior foreign government officials? If confirmed, do you commit 
to ensuring that U.S. Ambassadors in the Bureau of Western Hemisphere 
Affairs are included in such meetings in the future?

    Answer. The agenda and meetings were arranged by the National 
Security Council and the Government of Mexico. The National Security 
Council and the White House invited me to join in the trip of the 
Senior Advisor but did not consult me on the composition of the 
meetings. I have known Ambassador Jacobson for more than fifteen years 
and hold her in the highest regard and have regularly sought her 
counsel in my work. If confirmed, I commit to ensuring that U.S. 
Ambassadors are included in future such meetings.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                  Kimberly Breier by Senator Tim Kaine

    Question 1. As we discussed at your nomination hearing, I am 
concerned about the future of democracy in Honduras, especially in 
light of the irregularities and violence surrounding the recent 
presidential election. During the hearing you stated that a report by 
the Organization of American States (OAS) did not call for a new 
presidential election in Honduras. The preliminary report of the 
Electoral Observation Mission in Honduras released to the public did 
not explicitly recommend a new election take place. However, on 
December 17th, 2017, the OAS General Secretariat declared in a 
statement that after reviewing the preliminary report, ``the only 
possible way for the victor to be the people of Honduras is a new call 
for general elections.'' Despite this recommendation by the OAS, days 
later the Department of State recognized the victory of incumbent 
President Juan Hernandez:

   Given the recommendation of the OAS General Secretariat, please 
        explain in detail why the Department of State chose to 
        congratulate and recognize President Hernandez for winning the 
        disputed election and what factors it weighed in doing so when 
        breaking with the OAS recommendation?

    Answer. After close consultation with the Organization of American 
States (OAS) Election Observation Mission, the European Union (EU) 
Electoral Observation Mission, the EU Bilateral Mission, Mexico, 
Canada, and meeting with the Honduran Supreme Electoral Tribunal (TSE), 
the Department saw no evidence of specific and sufficient fraud that 
would change the outcome of the election or necessitate a new one. The 
Department of State recognized the election of President Hernandez on 
December 22, 2017, as declared by the TSE. I share your concerns 
regarding the electoral irregularities identified by the OAS and EU 
observation missions. Those irregularities and the close election 
results highlighted the need for a significant long-term effort to heal 
Honduras's political divide and enact electoral reforms. I understand 
Honduras invited the United Nations to facilitate a national dialogue 
for reconciliation, and the United Nations is leading a series of 
meetings with the three leading political parties to identify 
parameters for a potential national dialogue. If confirmed, I will 
advocate for a robust national dialogue, the enactment of significant 
electoral reforms to strengthen confidence in Honduran institutions and 
bolster Honduran democracy, and a significant role for civil society in 
the process.

    Question 2. U.S. companies operating in Honduras, Guatemala and El 
Salvador continue to report unjustified delays or denials of tax 
refunds to which they are lawfully entitled. According to the American 
Chamber of Commerce (AmCham) in Honduras, in 2017 the Government of 
Honduras owed more than $60 million in tax refunds to 49 local and U.S. 
companies. This includes seven U.S. companies that were owed at the 
time more than $34 million. The AmChams in El Salvador and Guatemala 
have similarly stated comparable amounts are owed to local and U.S. 
companies in their countries, and that requests for refunds are 
routinely met with delays or denials. While significant progress has 
been made in El Salvador, vigilance is required to ensure that all 
Northern Triangle governments establish and maintain refund policies 
and set examples that help formalize and stimulate local economies. 
Understanding that the Alliance for Prosperity in the Northern Triangle 
is designed to stimulate economic growth and strengthen trust in public 
institutions in the region, it is imperative that the Northern Triangle 
governments treat U.S. entities and affiliates operating in the region 
in a fair and transparent manner:

   If confirmed, how would you encourage the Northern Triangle 
        governments to promote a culture of tax compliance among their 
        citizens and businesses, and what steps would you take to 
        ensure that these governments fulfill the legal and financial 
        obligations necessary to foster an attractive investment 
        environment and stimulate economic growth, including the timely 
        refund of excess taxes paid by U.S. companies?

    Answer. I agree that transparent, consistent, and predictable rule 
of law and processes that enforce legal and financial obligations, 
including tax collection and reimbursement procedures, are important to 
attracting foreign direct investment and fostering economic growth. 
Credible tax collection requires taxing all companies, foreign and 
domestic, in a nondiscriminatory and transparent fashion. I understand 
our Embassies and officers at the State Department regularly meet with 
and advocate for the interests of U.S. companies who have invested in 
the Northern Triangle, including several who have concerns regarding 
tax reimbursements. If confirmed, I will continue this practice and 
will advocate for a transparent, predictable, and level playing field 
for U.S. companies doing business in El Salvador, Guatemala, and 
Honduras.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Kimberly Breier by Senator Edward J. Markey

    Question 1. During your confirmation hearing, you stated that you 
believed that the Organization of American States had noted 
irregularities in the election of President Juan Orlando Hern ndez in 
Honduras, but not called for a new, legitimate election overseen by 
independent international observers. I would like to draw your 
attention to the OAS statement available here (http://www.oas.org/en/
media--center/press--release.asp?sCodigo=E-092/17) where the OAS wrote, 
``For the aforementioned reasons, and given the impossibility of 
determining a winner, the only possible way for the victor to be the 
people of Honduras is a new call for general elections, within the 
framework of the strictest respect for the rule of law, with the 
guarantees of a TSE that enjoys the technical capacity and confidence 
of both the citizens and political parties.'' With this information do 
you believe that the U.S. Government should also call for a prompt new 
election, overseen by independent, international observers, in order to 
ensure the democratic legitimacy of the Government of Honduras? If not, 
please explain.

    Answer. The Department of State recognized the election of 
President Hernandez on December 22, 2017, as declared by the Honduran 
Supreme Electoral Tribunal (TSE). I share your concerns regarding the 
electoral irregularities identified by the Organization of American 
States (OAS). Those irregularities and the close election results 
highlighted the need for a significant long-term effort to heal 
Honduras's political divide. I understand Honduras invited the United 
Nations to provide support to a national dialogue for reconciliation, 
and the United Nations is leading a series of meetings with the three 
leading political parties to identify parameters for a potential 
national dialogue. If confirmed, I will advocate for a robust national 
dialogue and the enactment of significant electoral reforms to 
strengthen confidence in Honduran institutions.

    Question 2. In March, I wrote a letter to the State Department to 
express my concerns regarding the reports of alleged human rights 
abuses by security forces in Honduras following November's disputed 
presidential election and to urge that the State Department ensure that 
U.S.-trained police or military have not used U.S. training, equipment, 
or other assistance to oppress the Honduran people. I'm pleased that 
the State Department takes seriously these concerns, but I remain 
convinced that we could do more to promote human rights in Honduras. 
Are you committed to using all U.S. tools to encourage the Honduran 
Government to uphold human rights in Honduras? What will you do to 
ensure that U.S.-trained police and military personnel are not using 
U.S.-funded training, equipment or other assistance to violate the 
human rights of Honduran citizens?

    Answer. Yes, if confirmed, I will commit to upholding and promoting 
human rights in Honduras. I will push Honduran authorities to fully 
investigate any and all allegations of human rights abuses by security 
forces and prosecute those responsible. If confirmed, I will also 
continue to work with the Ministry of Human Rights to address the human 
rights challenges Honduras faces.
    I understand the Department held a bilateral human rights working 
group with the Honduran Government in April to collaborate on improving 
the human rights situation in Honduras by addressing issues including 
strengthening governmental human rights institutions, working with 
international human rights partners and civil society, improving 
citizen security, combating corruption and impunity, and stemming 
outward migration. If confirmed, I will utilize mechanisms such as the 
bilateral human rights working group to urge the Honduran Government to 
uphold human rights and demonstrate a clear commitment to addressing 
corruption, consistent with its international commitments and legal 
obligations.

    Question 3. The U.S. Congress has repeatedly called for the removal 
of the Honduran Armed Forces from domestic policing. President Hern 
ndez has repeatedly promised to do so, and established time lines for 
withdrawal. Yet the military remains today more present in domestic 
policing than ever, with escalating deadly effects. Moreover, a recent 
investigative story from BuzzFeed reports the Guardianes de la Patria 
(Guardians of the Fatherland) program is being used not only to 
indoctrinate young children into obedience to the military, but 
employing children in intelligence projects reporting on their 
neighbors. New units of the military police continue to be launched. Do 
you think the United States should continue to fund, train, and equip 
Honduran military who engage in domestic policing?

    Answer. I understand that the Department does not provide foreign 
assistance funds to Honduran military engaged in domestic policing. The 
Honduran Government is aware of this policy. If confirmed, I will 
reinforce the Department's long-standing position that policing is best 
done by civilian police who are properly trained and equipped, and I 
will continue to support Honduran efforts to reform its national 
police. U.S. foreign assistance is helping to develop a professional, 
accountable, and effective civilian police force that upholds the rule 
of law. I view this support as critical to the Honduran Government's 
efforts to professionalize and reform its police force. If confirmed, I 
will support U.S. assistance to strengthen law enforcement in Honduras.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Kimberly Breier by Senator Jeff Merkley

    Question 1. Given the current desperate situations and unrest in 
many countries across Central America--Nicaragua, Honduras, El 
Salvador, and Guatemala--what would you do, as Assistant Secretary of 
State for Western Hemisphere Affairs, to address long-term regional 
instability challenges, and to raise these issues as a priority within 
the administration?

    Answer. Regional instability in Central America adversely affects 
countries beyond the region's borders. The civil unrest in Nicaragua, 
the violence in El Salvador, and the lack of government transparency in 
Honduras and Guatemala directly affect the security, safety, and 
prosperity of the United States and the citizens of the region. High 
levels of violence, lack of economic opportunity, weak institutions, 
corruption, and political instability in Central America allow 
transnational criminal organizations to operate and threaten the United 
States and create the conditions that drive illegal immigration from 
Central America.
    If confirmed, I will continue the Department's work under the U.S. 
Strategy for Central America to help the countries of Central America 
to address the security, governance, and economic drivers of illegal 
immigration and illicit trafficking through programs that enhance 
economic opportunity, reduce insecurity and violence, and fight 
impunity and corruption. U.S. assistance combats drug and human 
trafficking, smuggling of people and illicit goods, and transnational 
gangs and criminal organizations before they reach the United States.

    Question 2. With regard to economic development programs as 
policies, how would you ensure that the rights of indigenous people, 
ethnic minorities, and other disenfranchised groups are upheld by the 
local governments?

    Answer. If confirmed, I will continue the Bureau of Western 
Hemisphere Affairs' policy to promote social inclusion and advance 
economic growth in the region, including through bilateral action plans 
on racial and ethnic equality with Brazil and Colombia. If confirmed, I 
will commit to working with our interagency partners to ensure U.S. 
development programs help historically marginalized groups increase 
their access to and participation in the civic and economic 
opportunities within their countries, including through encouraging 
host countries to engage in prior consultation with communities 
affected by development projects, as appropriate.

    Question 3. In light of the challenges noted above, do you support 
the decision by the Trump administration to rescind Temporary Protected 
Status for Central Americans and citizens of Haiti?

    Answer. I understand the Department of Homeland Security has the 
authority, in accordance with Section 44 of the Immigration and 
Nationality Act, to provide Temporary Protected Status (TPS) to foreign 
nationals present in the United States who cannot return home in safety 
due to temporary and extraordinary conditions, and to terminate the TPS 
designation of such countries when the statutory criteria is no longer 
met. I further understand that the Department of State's role in TPS 
decisions is advisory. The Department of Homeland Security made a 
determination to terminate the TPS designations for Nicaragua, Haiti, 
El Salvador, and Honduras in late 2017 and early 2018. If confirmed, I 
will ensure the Department and USAID continue working with governments 
in the region to strengthen their ability to reintegrate their 
returning nationals, including TPS returnees. I will also make certain 
the Department provides consular services to U.S. citizens, including 
U.S. citizen children of TPS beneficiaries.

    Question 4. As Assistant Secretary of State, how would you assess 
the security situation in all of the countries to which former-TPS-
protected individuals would have to return?

    Answer. I am aware of the security challenges in Central America 
and Haiti and understand the U.S. Government conducts foreign 
assistance programs in the region to enhance citizen security, reduce 
violence, deter human smuggling and trafficking, professionalize police 
and military institutions, and improve the ability of governments in 
the region to address these issues on their own. If confirmed, I will 
continue to promote U.S. programs that disrupt transnational criminal 
organizations, promote citizen security, halt illegal immigration, and 
promote sustainable economic growth by addressing the underlying causes 
of insecurity, impunity, and lack of economic opportunity.

    Question 5. Would you support an alternate to deporting people, 
such as a path to permanent resident status for those who have no 
criminal records?

    Answer. The Department of State's mission is to advance the 
interests of the American people by leading America's foreign policy 
through diplomacy. I would defer to the Department of Homeland Security 
or other U.S. Government entities charged with oversight of immigration 
policy on questions of deportation or permanent resident status.

    Question 6. As Assistant Secretary of State for Western Hemisphere 
Affairs, how will you hold governments accountable for failing to 
protect women, children, and other victims of domestic violence by 
failing to have laws and law enforcement infrastructure that would 
adequately prevent these crimes, protect the victims, and prosecute the 
offenders?

    Answer. Domestic violence is a serious problem in Latin America and 
many times one of the least visible spheres of citizen insecurity 
afflicting many parts of Latin America. If confirmed, I would continue 
to advance the U.S. commitment to improving citizen security and ensure 
that strengthening and extending the rule of law continues to be a 
critical component of our diplomatic engagement and capacity-building 
efforts across the region. I will use a full range of diplomatic 
engagement with host governments, civil society, the private sector, 
and the media to press for development and implementation of laws and 
policies to monitor, prevent, and respond to domestic violence. This 
will include continued support for programs to strengthen institutions 
and support partner governments' efforts to develop appropriate 
legislation, harmonize laws, develop action plans for implementation, 
and bolster oversight of and advocacy for implementation of these laws.

    Question 7. As Assistant Secretary of State for Western Hemisphere 
Affairs, how will you hold governments accountable for failing to 
protect victims of crime--especially organized crime syndicates--by 
failing to have laws and law enforcement infrastructure that would 
adequately prevent these crimes, protect the victims, and prosecute the 
offenders?

    Answer. I will ensure that strengthening and extending the rule of 
law continues to be a critical component of our diplomatic engagement 
and capacity building efforts across the region. I will work to target 
our assistance programs and partner government actions to address the 
full range of factors contributing to the permissive environment that 
criminals exploit, ranging from strengthening community resilience to 
improving law enforcement capacity and enhancing judicial processes. I 
will also ensure that our capacity-building efforts continue to include 
strong measures of effectiveness that will assist us in evaluating 
partner government and program performance.

    Question 8. Do you believe that the Honduran constitution permitted 
Juan Orlando Hernandez to be a candidate for re-election in November 
2017?

    Answer. I understand the Department recognized the victory of Juan 
Orlando Hernandez in the November 26 presidential elections, as 
declared by Honduran electoral authorities, in December 2017. It is up 
to the Honduran people to determine their political future through 
their democratic institutions and processes.

    Question 9. Do you believe that the OAS report is a credible and 
objective assessment of the November 2017 Honduran election?

    Answer. I understand that the Department shares the concerns 
regarding the electoral irregularities identified by the Organization 
of American States (OAS). I do not believe that the Department has seen 
any evidence of specific fraud that would change the outcome of the 
election or necessitate a new one. Those irregularities and the close 
election results highlighted the need for a significant long-term 
effort to heal Honduras's political divide. I understand Honduras 
invited the United Nations and the OAS to provide support to a 
dialogue. If confirmed, I will advocate for a robust national dialogue 
and enactment of significant electoral reforms to strengthen confidence 
in Honduran institutions.

    Question 10. Will you, as Assistant Secretary of State for Western 
Hemisphere Affairs, work with the OAS to push for new elections in 
Honduras that adhere to the Honduran constitution and that are 
administered according to international standards to which Honduras has 
agreed to be bound (but failed to meet in November 2017)?

    Answer. The Department of State recognized the election of 
President Hernandez on December 22, 2017, as declared by the Honduran 
Supreme Electoral Tribunal (TSE). I share your concerns regarding the 
electoral irregularities identified by the Organization of American 
States (OAS) and European Union (EU) observation missions. Those 
irregularities and the close election results highlight the need for a 
significant long-term effort to heal Honduras's political divide and 
develop much-needed electoral reforms. I understand Honduras invited 
the United Nations to provide support to a national dialogue for 
reconciliation, and the United Nations is leading a series of meetings 
with representatives of the three leading candidates from the election 
to identify parameters for a potential national dialogue. If confirmed, 
I will advocate for a robust national dialogue and the enactment of 
significant electoral reforms to strengthen confidence in Honduran 
institutions.

    Question 11. In the wake of the election there were protests that 
were met with deadly violence. Do you believe there should be an 
independent investigation into the Honduran security forces' use of 
deadly force against protesters?

    Answer. I remain deeply concerned by the deaths of civilians and 
security forces following the election. The Honduran Government must 
ensure security forces respect the rights of protestors. Honduran 
authorities must also investigate credible allegations of human rights 
abuses by security forces and hold accountable those responsible.
    If confirmed, I will press the Honduran Government about the need 
to respect the rights of protestors and push for timely investigations 
into civilian deaths following the election. If confirmed, I will also 
urge the Honduran Government to apply lessons learned from these 
events, including by improving its use of force procedures, to prevent 
them from happening again.

    Question 12 . Honduran Minister of Security Julian Pacheco Tinoco 
was named in U.S. federal court last spring to have overseen drug 
trafficking flights while he was a general in the Honduran Armed 
Forces. The Associated Press also reported in January that National 
Director of Police Jose David Aguilar Moran and his senior national 
police deputies oversaw the movement of over a ton of cocaine in 2013, 
according to a confirmed internal investigation by the Honduran police. 
Separately, human rights observers note that Colonel German Alfaro, the 
Director of Military Intelligence, has been reported to have supervised 
Honduran military forces implicated in the killings of dozens of small-
farmer activists in the Agu n Valley. None of them has been suspended 
or prosecuted, despite substantial evidence.

   If U.S. security assistance training or equipment is found to have 
        been used against civilians protesting, would you support 
        suspending security aid?
   Please confirm that the above-named individuals have been found 
        ineligible to receive U.S. visas based on their roles 
        supporting drug trafficking and/or human rights violations.

    Answer. In accordance with U.S. law and Department policy, the 
State Department conducts Leahy vetting prior to furnishing assistance 
to foreign security force personnel and units. Pursuant to the Leahy 
law, the Department does not furnish assistance to any unit of the 
security forces of a foreign country if the Secretary of State has 
credible information that the unit has committed a gross violation of 
human rights. If confirmed, I will continue to uphold this meticulous 
vetting process.
    In accordance with U.S. law, the United States does not publicly 
disclose visa information due to statutes governing U.S. visa 
confidentiality. To your broader point, if confirmed, I will work to 
cooperate with U.S. law enforcement to hold accountable individuals 
involved in drug trafficking, violent crimes, and human rights 
violations.

    Question 13. As Assistant Secretary of State, how will you 
prioritize pressing Honduras to hold accountable senior security and 
other government figures who have abused their positions of 
responsibility to engage in criminal enterprises?

    Answer. If confirmed, I will urge the Honduran Government to 
demonstrate its commitment to accountability, transparency, and the 
fight against impunity in Honduras. This includes holding accountable 
individuals who have abused their official positions to engage in 
criminal enterprises. The Organization of American States' Mission 
Against Corruption and Impunity in Honduras (MACCIH) and the Honduran 
Public Ministry work together to strengthen the rule of law and 
dismantle corruption networks in Honduras. If confirmed, I will 
prioritize assistance and support to MACCIH and the Public Ministry and 
encourage the Honduran Government to empower MACCIH to carry out its 
mission to root out corruption.
    I understand the Department also provides technical assistance and 
training to Honduran prosecutors, judges, and justice sector actors to 
support more effective, transparent, and accountable judicial 
institutions, combat corruption and impunity, promote accountability, 
uphold the rule of law, and increase access to justice. If confirmed, I 
will support these types of anti-corruption efforts in order to promote 
accountability and combat impunity in Honduras, including among 
government officials.

    Question 14. Across Latin America, there are credible reports of 
transgender women being targeted for abuse, with far too few 
perpetrators held accountable. On International Day Against Homophobia, 
Transphobia and Biphobia (IDAHOTB) Secretary Pompeo stated that the 
U.S. ``opposes criminalization, violence and serious acts of 
discrimination'' against LGBTI persons.'' What specifically will you 
commit to do to help LGBTI people in the Western Hemisphere, to ensure 
they are not targeted for abuse or discrimination, and to ensure that 
crimes against them are adequately investigated and prosecuted?

    Answer. As Secretary Pompeo affirmed in his statement on the 
International Day Against Homophobia, Transphobia and Biphobia, ``the 
United States stands with people around the world in affirming the 
dignity and equality of all people regardless of sexual orientation, 
gender identity or expression, or sex characteristics. Human rights are 
universal, and LGBTI people are entitled to the same respect, freedoms, 
and protections as everyone else.'' If confirmed, I will promote the 
inclusion of LGBTI persons and support the Department's use of public 
and private actions to counter violence and discrimination against 
LGBTI persons. These include diplomatic outreach through bilateral and 
multilateral channels, offering emergency assistance to LGBTI persons 
and organizations at risk, and imposing visa restrictions and economic 
sanctions, as appropriate, against those who violate their human 
rights.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Kenneth George by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I believe my career, both in prior government service and 
in the private sector, by their very nature, have promoted human rights 
and democracy. I served as Assistant Secretary and Director General of 
the U.S. and Foreign Commercial Service in embassies and consulates in 
65 countries and 120 foreign cities in their endeavors to improve 
economic opportunities, the growth of human rights, and the 
institutions promoting democracy. In addition to these 
responsibilities, I was tasked to lead the economic rebuilding, the 
reintroduction of democracy, and the strengthening of human rights on 
the island of Granada. After serving in the federal government, I 
served four years in the Texas Legislature and supported the most 
important actions in any democracy, open and free elections.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Uruguay? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Uruguay enjoys free and competitive elections, active 
political opposition, free press, civil society, and labor unions, and 
strong respect for human rights. Uruguay is a significant partner for 
strengthening the international human rights framework through 
international institutions. Uruguay has advocated for creating and 
defending international human rights norms and standards. According to 
the Department of State's Human Rights Report, the most significant 
human rights issues included poor and potentially life-threatening 
conditions in some prisons, widespread use of extended pretrial 
detention, and violence against women and children. At times the 
country struggles to effectively implement human rights-related 
legislation due to resource shortages, a lack of specific procedures 
and protocols, and difficulties with interagency coordination.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Uruguay? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States and Uruguay share strong values on 
democracy and human rights, and promoting governance and human rights 
is one of our top priorities in Uruguay. If confirmed, I will seek to 
provide continued capacity building and support expert exchanges for 
the judicial branch, the Attorney General's Office, the Ministry of 
Interior, and other key institutions. I will also continue efforts to 
engage with and strengthen civil society organizations. The Embassy 
will continue to draft, circulate, and promote the Department's annual 
reports on human rights, trafficking in persons, child labor, and 
religious freedoms with public sector counterparts and civil society in 
order to raise awareness on these important issues. If confirmed, I 
will utilize the Department's social and traditional media resources 
strategically to amplify our messaging on democracy and human rights.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. As a high-income country, Uruguay does not receive U.S. 
assistance funding. I understand that the United States works with 
Uruguay to promote democracy and human rights in international 
institutions. I also understand that the Embassy's small grants program 
supports civil society projects to promote democracy and social 
justice. If confirmed, I would seek to continue these efforts.

    Question 5. If confirmed, will you meet with civil society members, 
human rights and other non-governmental organizations in the U.S. and 
with local human rights NGOs, and other members of civil society in 
Uruguay? What steps will you take to pro-actively address efforts to 
restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. Yes. I understand that as a practice, the U.S. embassy in 
Montevideo meets with non-governmental organizations, think tanks, 
international organizations, and human rights experts and defenders, 
and civil society leaders. Uruguay has a free civil society and, if 
confirmed, I look forward to continuing the embassy's broad engagement 
with such groups and individuals, both in promoting regular dialogue 
and providing opportunities to strengthen the role of civil society in 
Uruguay through exchanges and capacity-building programs. To my 
knowledge, the State Department has no reports of Uruguay seeking to 
restrict or penalize non-governmental organizations or civil society 
via legal or regulatory measures.

    Question 6. Will you and your embassy team actively engage with 
Uruguay on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Uruguay?

    Answer. Yes. Fortunately, I understand the Department does not have 
reports of efforts designed to control or undermine press freedom 
through legal, regulatory, or other measures in Uruguay. If confirmed, 
I look forward to engaging with the press and advocating for freedom of 
the press.

    Question 7. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Any foreign effort-whether external or through internal 
actors-to improperly influence Uruguay's elections would be completely 
unacceptable. If confirmed, I will remain vigilant of foreign sponsored 
disinformation campaigns and of any attempt to spread disinformation in 
the region. One of the best defenses against disinformation is a free 
and transparent news media environment, which is why we engage with our 
partners and allies, including host government counterparts and civil 
society, around the globe to strengthen independent journalism. Healthy 
and robust public debates based on facts, evidence, and reason are 
integral to civic engagement. I believe a well-informed citizenry is 
key to the strength of democratic institutions.

    Question 8. Will you, your staff and your embassy teams actively 
engage within Uruguay on the right of labor groups to organize, 
including for independent trade unions? Will you and your embassy team 
engage political parties, and advocate for access and inclusivity for 
women and minorities?

    Answer. Uruguay has strong and active trade unions, and the 
Government and constitution recognize the right for labor to organize. 
If confirmed, my team and I will actively support labor rights. Uruguay 
also enjoys open competition among political parties from across the 
ideological spectrum, including active political opposition parties. 
Uruguay recently approved an extension of its 2009 gender-quota law, 
which says that one of three candidates on an election list must be 
female. Uruguay will hold national elections in 2019, and I understand 
the U.S. embassy expects an open and competitive campaign. If 
confirmed, I will engage with leaders from across the political 
spectrum, including minority and opposition candidates, and will 
advocate for access and inclusivity for women and minorities.

    Question 9. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Uruguay, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Uruguay? What specifically will you commit to do to help LGBTI 
people in country Uruguay?

    Answer. Uruguay is one of the most progressive countries in the 
hemisphere on Lesbian, Gay, Bisexual, Transgender, and Intersex (LGBTI) 
rights. Uruguayan law prohibits discrimination based on sexual 
orientation and gender identify. The Uruguayan Government hosted the 
4th Global LGBTI Human Rights Conference in July 2016, the first such 
conference in the Americas. Uruguay co-founded the Equal Rights 
Coalition, an international forum to strengthen cooperation and share 
information in advancing LGBTI rights and inclusion. However, LGBTI 
individuals face societal discrimination and some acts of violence, 
particularly against transgender individuals. If confirmed, my staff 
and I will meet regularly and consult closely with representatives of 
the LGBTI community on how best to support its efforts to protect, 
defend, and advance human rights and fundamental freedoms for all--
including by strengthening Uruguay's ability to protect LGBTI 
individuals from violence and ensuring that perpetrators are brought to 
justice.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Kenneth George by Senator Benjamin L. Cardin

    Question 1. Despite its small size, Uruguay plays an active role in 
promoting stability and security in the Western Hemisphere and around 
the world. By most accounts, Uruguay is a strong proponent of democracy 
and human rights, the peaceful resolution of disputes, international 
law, and multilateralism, and it often seeks to advance those values by 
serving as a consensus builder and mediator in international 
institutions. Indeed, Uruguay has taken an interesting approach to the 
OAS's attempts to resolve the crisis in Venezuela. The Vazquez 
administration has condemned the undemocratic actions of the Venezuelan 
Government but reportedly views U.S. and regional efforts to isolate 
Venezuela diplomatically as counterproductive to fostering a peaceful 
restoration of democracy.

   How would you engage the Vazquez administration on Venezuela?

    Answer. If confirmed, I will engage the V zquez administration by 
focusing on the multilateral approach to Venezuela within the 
Organization of American States (OAS). I will also strongly urge 
Uruguay to join its neighbors in standing up to defend the shared 
values that unite our hemisphere at the OAS.
    Additionally, if confirmed, I will also speak with Uruguayans about 
something they know all too well--a people's loss of their democratic 
rights. From June 1973 until February 1985, an undemocratic regime 
curtailed democratic rights, violated human rights, tortured, and 
``disappeared'' Uruguayan citizens. Thousands emigrated, many never to 
return. Uruguayans struggled to restore their institutions, but they 
created a strong democracy with independent institutions. I see in 
Venezuela's present circumstances echoes of Uruguay's past. If 
confirmed, I will urge Uruguayans to join us and their South American 
neighbors in helping Venezuelans recover their own institutions and 
their own political rights.

    Question 2. Do Uruguay's domestic achievements, including a strong 
democracy and rising living standards, provide any lessons for 
countries elsewhere in the region?

    Answer. Uruguay has done a remarkable job of securing a high 
standard of living for its citizens. Uruguay ranks second in Latin 
America on the Human Development Index, and second on the Economic 
Freedom Index. Sixty percent of Uruguay's population is middle class, 
the highest rate in the Americas. And Uruguay has done all this while 
maintaining--and even strengthening--its democratic institutions.
    Uruguay has demonstrated the benefits of focusing on broad social 
inclusion, ensuring protections for the most vulnerable, and building 
upon strong social consensus. While different countries have different 
social and economic policies as befit their unique circumstances, the 
process of using strong democratic institutions to build social 
consensus and negotiated agreements can serve as an example for other 
countries of the benefits of a democratic system.

    Question 3. Uruguay has deepened it bilateral trade relationship 
with the United States significantly in the last decade, with the U.S. 
as its fourth largest trading partner. However, according the U.S. 
commerce department China is Uruguay's third largest trading partner.

   What should the United States be doing to remain competitive with 
        Chinese trade interests in Uruguay?

    Answer. China has engaged Uruguay on the trade, investment, 
security, and cultural/education fronts. In terms of trade and 
investment, if confirmed, I will highlight the value of doing business 
with U.S. companies, arrange more trade missions, and encourage 
bilateral investment opportunities. I would work to ensure the U.S. 
mission works with Uruguay to build our capacity to engage and 
facilitate commercial relationships. In the security area, if 
confirmed, I would underscore the shared democratic values inherent in 
our law enforcement and military relationships, focus on the quality of 
U.S. partnerships, services, and products, and coordinate assistance to 
Uruguay's peacekeeping operations. In the education and cultural arena, 
I would promote U.S. programs that assist in maintaining English 
predominance in foreign-language instruction and promote the quality 
and accessibility of U.S. education opportunities, while underscoring 
our shared values of individual rights and social justice.

    Question 4. What recommendations do you have to further 
implementation of the U.S.-Uruguay Trade and Investment Framework 
Agreement (TIFA)?

    Answer. Continued engagement in the TIFA process facilitated 
progress in the U.S.-Uruguay bilateral trade relationship. Recent 
achievements include Uruguayan bone-in lamb exports to the United 
States, U.S. live cattle exports to Uruguay, and a bilateral social 
security totalization agreement. If confirmed, I would work with the 
U.S. Trade Representative (USTR) to use the TIFA to address trade 
measures implemented or under consideration by the Government of 
Uruguay that are not in our interests.
    Additionally, amidst tight budgets and in a reach for additional 
revenues, Uruguay began applying increased import taxes by raising a 
consular fee this year. If confirmed, I will engage with USTR to see if 
TIFA discussions would be an appropriate forum to discourage and halt 
future such uses of the consular fee. Finally, if confirmed, I would 
focus on Uruguay's regional trade example; though U.S.-Uruguay 
bilateral trade volumes may be relatively small ($1.7 billion in two-
way trade in 2016), trade issues in Uruguay could set a precedent for 
its MERCOSUR partners.

    Question 5. President V zquez's economic policies have contributed 
to strong economic growth in the country. The poverty rate fell from 
39.9 percent in 2004 to 7.9 percent in 2017. Uruguay's middle class now 
encompasses 60 percent of the population, making it the largest in 
Latin America in relative terms. However, some groups continue to face 
more challenging circumstances. Nearly 17 percent of Afro-Uruguayans 
remain below the poverty line. I think it is important for Uruguay to 
ensure that all groups within the country can reap the benefits of this 
impressive economic growth.

   If confirmed as U.S. Ambassador to Uruguay, how would you address 
        this issue with the Government?

    Answer. Uruguay shares with the United States a strong belief in 
the equal treatment of people without regard to their race, gender, 
sexual orientation, ethnicity, social origin, or religion. If 
confirmed, I will lead the U.S. Government's efforts in Uruguay to 
strengthen our cooperation to promote social inclusion and equal 
opportunity for all, with a focus on economic growth for disadvantaged 
populations. Additionally, if confirmed, I will do my best to 
accurately describe the situation of Afro-Uruguayans and other 
marginalized groups in Uruguay through the annual human rights report 
and use it as a tool to advocate for the rights of vulnerable 
populations.

    Question 6. Will you vow to promote policies that prioritize 
economic inclusion for all Uruguayans?

    Answer. Yes, if confirmed I will promote policies that prioritize 
economic inclusion for all Uruguayans. As part of that effort, I will 
encourage my team to continue programs that encourage educational 
opportunity and economic growth for historically marginalized 
populations.

    Question 7. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I believe my career, both in prior government service and 
in the private sector, have promoted human rights and democracy. I 
served as Assistant Secretary and Director General of the U.S. and 
Foreign Commercial Service in embassies and consulates in 65 countries 
and 120 foreign cities in their endeavors to improve economic 
opportunities, the growth of human rights, and the institutions 
promoting democracy. In addition to these responsibilities, I was 
tasked to lead the economic rebuilding, the reintroduction of 
democracy, and the strengthening of human rights on the island of 
Granada. After serving in the federal government, I served four years 
in the Texas Legislature and supported the most important actions in 
any democracy, open and free elections.

    Question 8. What are the most pressing human rights issues in 
Uruguay? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Uruguay? What do 
you hope to accomplish through these actions?

    Answer. Uruguay enjoys a strong record on human rights, ranging 
from free and fair elections to respect for freedom of expression to 
laws against forced labor, child labor, and employment discrimination. 
The most significant human rights issues in Uruguay include poor and 
potentially life-threatening conditions in some prisons, widespread and 
unreasonably long trial delays resulting in extended pretrial 
detention, and violence against women and children. If confirmed, I 
will continue to support expert exchanges and training programs to help 
improve respect for human rights in Uruguayan prisons and facilitate 
the implementation of judicial reform.
    I am also concerned by the prevalence of violence against women and 
children and the challenges Uruguay faces related to trafficking in 
persons. If confirmed, this is an issue I will follow closely and will 
actively encourage the Government of Uruguay to protection and services 
for all trafficking victims, and to vigorously investigate and 
prosecute trafficking cases and hold traffickers accountable with 
strong sentences.

    Question 9. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Uruguay in 
advancing human rights, civil society and democracy in general?

    Answer. The Government of Uruguay is strongly committed to 
democracy and human rights. Given our shared values in this area, the 
United States works closely with Uruguay in promoting human rights and 
democracy around the world, and if confirmed, I will make it a priority 
to continue to do so.
    In spite of this, the United States has disagreed with Uruguay in 
one important area--the defense of democracy and human rights in 
Venezuela. I was disappointed that Uruguay abstained on the June OAS 
resolution supported by the vast majority of its South American 
neighbors. If confirmed, I will push Uruguay to play a stronger role in 
the Venezuela crisis by speaking out in defense of democracy and human 
rights.

    Question 10. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Uruguay? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of Uruguayan society, including human rights 
activists, non-governmental organizations, civil society, the media, 
religious groups, and other organizations. I will continue the 
Embassy's outreach to these groups, promoting regular dialogue and 
providing opportunities to strengthen the role of civil society in 
Uruguay through exchanges and capacity-building programs.
    Vetting of potential recipients of U.S. security assistance is 
vital for maintaining the integrity of our assistance programs. Embassy 
Montevideo already has in place a robust and active Leahy vetting 
program. If confirmed, I will prioritize Leahy vetting and seek ways to 
further strengthen the program.

    Question 11. Will you and your embassy team actively engage with 
Uruguay to address cases of key political prisoners or persons 
otherwise unjustly targeted by Uruguay?

    Answer. While there are no reports of political prisoners or 
detainees in Uruguay, if confirmed, my embassy team and I will actively 
engage with the Government of Uruguay should such issues arise. If 
confirmed, I will seek to ensure that all relevant stakeholders are 
able to play a supportive and collaborative role.

    Question 12. Will you engage with Uruguay on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with the Uruguayan 
authorities on matters of human rights, civil rights, and governance as 
part of our bilateral mission.

    Question 13. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 14. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 15. Do you or do any members of your immediate family have 
any financial interests in Uruguay?

    Answer. No.

    Question 16. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I am firmly committed to promoting, 
mentoring, and supporting a diverse staff. In my previous government 
service as Assistant Secretary and Director General of the U.S. and 
Foreign Commercial Service, I led a large staff with important work in 
65 countries and 120 foreign cities. Much of our work promoted a 
culture that highlighted diversity and inclusion within and without.
    As founder, Chairman of the Board and CEO of the nation's second 
largest ESOP, with 15,000 employee-owners scattered across 35 states, I 
feel qualified to manage and support staff from diverse backgrounds. My 
company's logo was the inverted pyramid. It spoke to the culture of the 
company that valued and empowered the employee-owners in unique and 
meaningful ways. The inverted pyramid was our visual demonstration that 
the senior leadership's role was to support those across all ranks of 
the company. This made it the company it became. Having 15,000 
employee-owners in a myriad of positions in the health care industry 
was a natural source of diversity that was celebrated. The very nature 
of my company's vision spoke to inclusion.

    Question 17. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will encourage both the State Department's 
personnel managers and the other Agencies represented at Post to send 
personnel with a diversity of backgrounds, ethnicities and orientations 
to our posts in Uruguay, particularly with respect to the Embassy's 
section heads, the senior-most officers reporting to me. Additionally, 
I believe that stressing and demonstrating the importance of providing 
an inclusive work environment, honoring all participants, and holding 
supervisors responsible is the best way to ensure an environment that 
is both diverse and inclusive.

                               __________


                              NOMINATIONS

                              ----------                              


                        THURSDAY, JUNE 14, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, Flake, 
Gardner, Young, Isakson, Portman, Menendez, Cardin, Shaheen, 
Coons, Murphy, Kaine, Markey, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations committee will come to 
order.
    And we thank our nominees for being here and for their 
willingness to serve our country.
    We especially thank our distinguished Senators who are here 
to introduced them: Senator Nelson, Senator Hirono. As a 
courtesy to you, we will not go through you having to listen to 
the unbelievable opening comments that both Menendez and I are 
going to offer in just a moment, and instead let you go 
directly to yours so that you can go to other meetings. So why 
do you not all go ahead and make your introductions? We thank 
you for coming in here to be with us today. We thank both of 
you for your service, and we look forward to your comments.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, Mr. Chairman, Senator Hirono and I 
would be delighted to hear the eloquence of the chairman and 
the ranking member, but the fact that you would allow us to go 
ahead--it is a personal reason that we are here because we know 
the nominee. And we consider the Admiral a distinguished 
Floridian. What we in our native lingo say that he is a Florida 
boy having gone to junior high and high school in Pensacola.
    I want to thank him for his willingness. And as you know, 
he was first nominated to be the Ambassador to Australia. And I 
think the fact that the administration decided this critically 
important post in South Korea--I think that indicates not only 
the confidence that people have in the four-star admiral, but 
it is also him being willing to answer the call of service 
wherever he is required.
    And he first answered that call as a young man 40 years 
ago, the Naval Academy. He comes from a long line of great 
naval aviators. And over the course of his military career, he 
reached the height of his profession. His dad, Navy chief petty 
officer. And his record speaks for itself.
    This is a nomination that is fitting and timely, and as we 
undertake now the diplomacy with North Korea, obviously the 
necessity is having the most prepared and skilled Ambassador to 
represent the United States in that part of the world. Like the 
other combatant commanders, he is not just what you think of as 
a combatant commander because every one of them are skilled 
diplomats. They are warriors, but they are also diplomats. He 
helped to grow the partnerships with the military and the 
political leaders throughout the Pacific region, and like any 
good military leader, he knows just how important diplomacy is. 
He is going to make a great Ambassador just like he made a 
great commander.
    It is not every day that two Senators, neither from the 
President's party, commend the nominee of the President. But 
this is a nominee that I look at--he is not partisan. He is not 
bipartisan. He is nonpartisan. And that is exactly what we 
need. It is telling that the nominee enjoys such broad 
bipartisan support. And I hope that this committee will move 
his nomination quickly. It is obvious that we need our 
Ambassador in that position.
    And I want to thank the Admiral and his family--and my wife 
has gotten to know his wife--for their courtesies extended to 
us. And we want to thank both of you for your continued public 
service after 40 years. Thank you.
    The Chairman. Thank you, sir. Thank you very much.
    Senator Hirono?

                STATEMENT OF HON. MAZIE HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman, for your courtesy, 
and Ranking Member Menendez and all the distinguished members 
of this committee.
    This week was a significant moment for our engagement in 
the Korean Peninsula. For the first time, a sitting United 
States President met with the leader of North Korea. At the 
Singapore summit, President Trump and Kim Jong-un committed to 
continue negotiations and reaffirm promises that North Korea 
has made in the past.
    However, we also heard the President question the long-term 
commitment of our troop presence in South Korea and accept the 
North Korean rationale on ending joint military exercises that 
have increased regional safety and cooperation.
    We all share the goal of a permanent, verifiable, 
denuclearization of the Korean Peninsula, but the hard work 
lies ahead. Many obstacles remain between Tuesday's handshake 
and a comprehensive, verifiable agreement between our two 
countries. Reaching an agreement will require months or even 
years of hard negotiations and considerable consultation with 
our regional allies, particularly South Korea and Japan.
    Our next Ambassador to South Korea can play a role in these 
negotiations. These efforts will require an individual with 
experience in the region, an understanding of our military 
forces serving on the Korean Peninsula, and the diplomatic 
skills and temperament necessary to negotiate with a regime 
that has repeatedly failed to live up to its commitments.
    I believe Admiral Harry Harris fits this bill, and I am 
honored to join Senator Nelson in introducing Admiral Harris to 
this committee to serve as our next Ambassador to South Korea.
    After graduating from the U.S. Naval Academy in 1978, 
Admiral Harris served as a decorated naval flight officer. He 
went on to hold a variety of leadership roles throughout the 
Navy, including as the Secretary of State's military attache 
during the Obama administration.
    I first met Admiral Harris just before he assumed command 
of the U.S. Pacific fleet in October 2013. Over the past 5 
years, I have gotten to know Admiral Harris and appreciate the 
open, supportive, and candid relationship that we have 
developed. He and his wife, Bruni Bradley, have become part of 
our Hawaii Ohana.
    Upon assuming command of the U.S. Pacific Command in 2015, 
Admiral Harris dedicated significant time and effort to 
strengthening America's regional alliances and partnerships. 
During visits to 22 of the 36 countries in the Indo-Pacific 
region, Admiral Harris met with civilian and military leaders 
and frequently attended joint exercises with our defense allies 
and partners. His work to improve military-to-military 
relationships often led to stronger government-to-government 
relationships throughout the Indo-Pacific region. In his time 
as Pacific fleet commander and PACOM commander, Admiral Harris 
developed close relationships with South Korean leaders, 
including current President Moon Jae-in. In 2014, he received 
Korea's Tong-il medal, the country's highest national security 
merit citation, in recognition of his work with the Republic of 
Korea armed forces. Admiral Harris also worked closely with our 
congressional delegation and other Members of Congress.
    When my colleagues in the House and Senate visited Hawaii 
and requested a PACOM briefing, I made it a point to also 
attend. Admiral Harris' briefings were always thorough, often 
eye-opening, and left attendees with a deeper appreciation for 
PACOM and our country's vital interests in the Indo-Pacific 
region.
    Many know Admiral Harris as a tough leader, with high 
expectations for the men and women under his command, but I 
also know him as a down-to-earth, empathetic person. Let me 
tell you a story.
    The ``Washington Post'' recently highlighted one example of 
Admiral Harris' dedication to others as part of a profile on 
Colonel Bruce Hollywood. Bruce was born in Japan to a Japanese 
mother and an American father, but Bruce's father left his 
birth mother in Japan, and she put Bruce up for adoption, 
thinking that that would be best for Bruce under the 
circumstances. He was adopted by an American couple, raised in 
Texas, and went on to serve as an Air Force colonel.
    After he nearly died of a heart attack in 2005, Bruce set 
off to find his birth mother and thank her for giving him the 
chance to have what he called a wonderful life. Bruce contacted 
the Japanese embassy in the United States, the U.S. embassy in 
Tokyo, and even hired a private detective, all to no avail. He 
had given up his search for his mother when by chance he met 
then Rear Admiral Harris at an airport and shared his story. 
When Admiral Harris told Bruce that he would help him find his 
birth mother, Bruce was very skeptical, but Admiral Harris was 
adamant. So Bruce gave him the information he had pieced 
together. And 10 days later, Bruce received a call while at 
work at the Pentagon. The Japanese embassy was on the phone 
with news that they had found, at long last, his birth mother, 
Nobue Ouchi. Thanks to Admiral Harris' assistance, Bruce 
reunited with his mother, and they were in contact for 3 years 
before she passed away in 2009.
    So in Admiral Harris, we have someone who is tough-minded 
and clear-eyed with tremendous military experience and someone 
who is very resourceful and focused on the task at hand.
    Admiral Harris' expertise in the Indo-Pacific region, his 
leadership experience and engagement with a variety of 
stakeholders in the region will stand him in good stead as our 
Ambassador to South Korea.
    Last month at the Pacific Command change of command 
ceremony, Chief of Naval Operations Admiral John Richardson 
described Admiral Harris as a warrior diplomat with an 
insatiable spirit of adventure and an infectious can-do 
attitude. Secretary of Defense Jim Mattis, who said earlier 
this year that diplomacy must be our first approach to 
deescalating tensions on the Korean Peninsula, praised Admiral 
Harris' experience and expressed his confidence in Admiral 
Harris in his new role at the same change of command ceremony.
    I join Secretary Mattis and so many others in expressing my 
confidence that Admiral Harris will serve our country well as 
our next Ambassador to South Korea. And I thank this committee 
for its consideration. Mahalo.
    The Chairman. Well, thank you for being here with us and 
both of you for your comments. You are welcome to leave and go 
about your day.
    Admiral, I understand why you have that Hawaiian lei on. 
You may wish to take it off before you testify, but if you do 
not wish to----
    Senator Hirono. I would be really hurt if he did that. 
[Laughter.]
    The Chairman. Okay. Thank you both again.
    Today we will consider the nominations of individuals to 
serve our nation in three roles: Ambassador to South Korea and 
the positions of Assistant Secretary for both Near Eastern and 
African Affairs. If confirmed, these individuals will direct 
our diplomatic efforts over an enormous swath of the globe and 
will grapple with issues ranging from the Syrian civil war to 
our ongoing dialogue with North Korea.
    We welcome all of you. We thank you for your willingness to 
serve and thank your families in the same way.
    We first have David Schenker. Mr. Schenker has extensive 
personal and professional experience in the Middle East and 
speaks a fluent Arabic. I am confident that Mr. Schenker is 
well equipped to balance and promote U.S. interests in the 
Middle East.
    No region has required more high-level attention than the 
Middle East, which is home to some of our most vital security 
partners and also the source of security challenges. Countering 
Iran, combating terrorism, working to resolve the wars in Syria 
and Yemen, and reinforcing our regional alliances requires 
continuous and focused engagement, which is why I am pleased 
that the administration has nominated David Schenker to be the 
next Assistant Secretary of State for Near East Affairs.
    Next, we have Ambassador Tibor Nagy to serve as Assistant 
Secretary of State for African Affairs. The United States has 
important interests in developing and maintaining strong 
partnerships with African countries, and we remain committed to 
supporting those that choose inclusive and responsible 
governance. The Africa Bureau must address an extremely large 
range of diplomatic challenges across the continent with 
resources and talent appropriate to our growing expectations of 
relationships we have there.
    Finally, we have Mr. Harry Harris. I feel like I know more 
about you than I even want to know--[Laughter.]
    The Chairman:--who just recently retired with the rank of 
Admiral after completing a highly distinguished career in the 
United States Navy, to serve as the Ambassador to the Republic 
of Korea. The U.S.-Republic of Korea alliance is an important 
relationship for maintaining peace and stability in the Indo-
Pacific. During this critical moment on the Korean Peninsula, 
we require an Ambassador in Seoul that will speak frankly about 
the importance of alliance cohesion, including maintaining the 
administration's maximum pressure strategy while pursuing 
negotiations to eliminate North Korea's nuclear weapons.
    I am glad the President and Kim Jong-un were able to have a 
meeting this week in Singapore, but I look forward to having 
Secretary Pompeo before our committee soon to share his 
insights about what of a concrete nature has occurred, 
including the future of security cooperation with Japan and 
South Korea.
    We need an ambassador who appreciates that the U.S.-South 
Korea partnership runs deep, including cooperation across a 
range of political, economic, and cultural issues. I am 
confident that Mr. Harris recognizes the value of the 
relationship between Washington and Seoul and will effectively 
advocate for strengthening our relationship with this critical 
ally.
    Our thanks to all of you being here before the committee.
    Before I turn to Senator Menendez, we have two votes 
beginning at 10:30. We plan to move through. We are just going 
to continue on. If you could kind of time out when you leave, 
knowing when you are going to be coming up, that would be great 
so we can continue and not have a vacuum here.
    With that, I will turn to our distinguished ranking member 
and my friend, Bob Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for holding this 
hearing today. We have a panel before us of high-level 
nominees, and I appreciate and congratulate you and your 
families on the nominations.
    I am a bit dismayed that these nomination hearings have 
become one of the few opportunities the committee has to really 
engage on what the administration's policies are, and I hope, 
Mr. Chairman, we can have more hearings on more topics with 
administration witnesses so the committee can exercise its 
oversight role.
    Collectively, these nominees will be taking on some of the 
most pressing national security challenges at a time when good 
will towards our country is on a steep decline, where the 
administration's budget proposals are slashing non-military 
resources, and the crumbs of U.S. credibility were left 
somewhere between the summits in Canada and Singapore.
    But I want to welcome all the nominees. You have 
demonstrable records of service, expertise, and experience in 
your chosen fields.
    Admiral Harris, I almost think you should skip your opening 
statement because after that, I would rest my case. But I am 
sure that you will want to make it anyhow.
    You know that you have accepted this nomination at a time 
when our allies and adversaries are seriously questioning U.S. 
commitment to Asia and at a time when, perhaps as never before, 
adept and agile diplomacy is needed on the Korean Peninsula. 
Like you, I am fully of the view that it is imperative that we 
improve our engagement across the region, especially with 
allies like the Republic of Korea politically, economically, 
and strategically. I think the President blindsided everyone, 
including South Korea, when he carelessly conceded to Kim Jong-
un this week something North Korea has long wanted, the 
cessation of U.S.-South Korean joint military exercises, in 
exchange for--well, apparently nothing. So I am interested in 
your thoughts about how we strengthen the U.S.-Korean alliance 
moving forward.
    From your time as our Pacific commander, you are well aware 
of the extent of our challenge with North Korea. So we thank 
you for your service.
    As we consider the outcomes of the Trump-Kim meeting, any 
strategy to constrain North Korea's nuclear and ballistic 
missile programs must start with our allies and partners and 
lead to the complete, verifiable, and irreversible 
dismantlement of North Korea's nuclear and ballistic missile 
programs.
    Mr. Schenker, in the Middle East, the Trump 
administration's strategy for the U.S. role in the region is 
something that I am still trying to deduce. If confirmed as the 
Assistant Secretary of State for Near Eastern Affairs, you will 
have the responsibility not only to craft but to execute policy 
here in Washington, but also to drive diplomatic implementation 
in cooperation with our partners and allies.
    When it comes to Iran, I share the long sought goal of 
stopping all of Iran's nuclear and non-nuclear threats. But I 
worry that the President's unilateral actions have degraded the 
very partnerships we need to maintain unity of effort in 
countering the Iranian regime's malign activities.
    Regarding Israel, I share the goal of ensuring that Israel 
has the resources and support she needs to defend herself. But 
I worry that the President's desire to withdraw U.S. forces 
from Syria while freezing our stabilization assistance programs 
and closing doors to refugees are tactics without strategy and 
that, taken together, amount to an abdication of U.S. 
leadership. Over the past year, Bashar al Assad facilitated the 
activities of violent extremists next door to Israel. Iran is 
moving its proxies ever closer to Israel's borders. Lebanese 
Hezbollah is preparing for the next war, and Russia has 
demonstrated neither the resolve nor the capability to curb 
Iran's actions in Syria.
    I hope you share Secretary Pompeo's commitment as expressed 
at his nomination hearing to sustain programs that address 
conditions that give rise to transnational terrorist groups, 
including poor governance, lack of economic opportunity, 
corruption, and persistent human rights abuses.
    Finally, I am pleased that the nominee to be the Assistant 
Secretary for the Africa Bureau has an impressive record of 
service to this country. For decades, both Republican and 
Democratic Presidents with the help of lawmakers on Capitol 
Hill have undertaken an impressive set of initiatives over the 
years, including the African Growth and Opportunity Act, 
PEPFAR, MCC compacts, and Power Africa. The administration has 
given us little encouragement on continued cooperation. The 
President's unseemly comments about Africa and the steep budget 
cuts to the 150 account send an alarming signal, and while the 
administration's national security strategy makes lots of 
promises about its engagement with Africa, the budget requested 
would in no way facilitate that strategy or secure our 
interests in countering ISIS or Al Qaeda affiliates. Perhaps 
most troubling, the administration does not appear to have a 
whole-of-government approach towards Africa which places 
emphasis on all of the three D's: defense, diplomacy, and 
development.
    Take Niger. Niger is facing increasing security threats on 
three fronts. It also ranked 187 out of 188 on the most recent 
human development index. The U.S. military has over 800 
soldiers deployed to Niger as part of our effort to help that 
government fight terrorism, four of whom were tragically 
killed. We are building an airfield in Agadez. However, we do 
not have a USAID mission in the country that could help support 
sustainable governance and economic growth.
    I have written the administration about the need for a 
strategy for Mali. I have sounded the alarm about increasing 
violence in the Central African Republic and raised questions 
with Secretary Pompeo about our strategy for South Sudan, 
Sudan, and the Horn of Africa. We have yet to receive a 
satisfactory response.
    So, Ambassador Nagy, I certainly hope that you and I will 
have an opportunity to talk soon and look forward to hearing 
about your priorities, your plans, and your intentions, if 
confirmed.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And as it relates to having witnesses in, I know I said so 
in my opening comments, but we are pushing to have Secretary 
Pompeo in so we can fully understand what actually happened in 
Singapore. And as you know, we have not had a lot of officials 
to have testify, and this meeting is, hopefully, going to help 
fill some of the slots. But I thank you for your comments and 
agree that we need to have officials in here helping us.
    If you all would just move in order, starting with Admiral 
Harris, I would appreciate it. If you could keep your comments 
to about 5 minutes, we appreciate it. If you want to introduce 
your outstanding families who are here, please feel free to do 
so. It usually tempers folks on this side of the dais. And if 
you could keep your comments to 5 minutes. If you have any 
written documents, we are glad to accept them here also. 
Admiral?

STATEMENT OF HARRY B. HARRIS, JR., OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                AMERICA TO THE REPUBLIC OF KOREA

    Mr. Harris. Thanks, Mr. Chairman and Ranking Member 
Menendez and distinguished members of the committee. I am 
honored to be with you today on Flag Day, I might add, as 
President Trump's nominee to serve as the U.S. Ambassador to 
the Republic of Korea. I am humbled the President has entrusted 
me with this opportunity to work with the White House and our 
dedicated officers at the State Department and the 15 other 
departments and agencies that make up Mission Korea to lead our 
engagement with such an important ally.
    Few nominees are fortunate enough to testify before their 
own Senators, and I am privileged to be here before you, 
Chairman Corker from Tennessee and Senator Rubio of Florida. I 
am also grateful that Senators Nelson and Hirono took the time 
to formally introduce me.
    Knowing I have not journeyed here alone, let me take a 
moment to express my love and gratitude to my wife, Bruni 
Bradley, behind me, herself a 25-year Navy veteran.
    A personal thanks as well to the many former ambassadors 
who have helped me these past few months, nominees of both 
parties.
    To the men and women of the U.S. Indo-Pacific Command, it 
has been a privilege and joy to have served with you these past 
3 years.
    And finally, I am honored to be on this panel with such 
luminaries as David Schenker and Tibor Nagy. I hope you will 
ask them the hard questions and save the softballs for me. 
[Laughter.]
    Mr. Harris. President Trump and his administration have 
made clear that our alliance with Korea is one of our top 
priorities. The President hosted President Moon just last June 
and again last month. The President also visited Korea last 
November in the first state visit by a U.S. President in 25 
years. Following this, there have been a number of other 
senior-level visits, underscoring the strength and importance 
of our bilateral relationship. In fact, Secretary Pompeo is in 
Seoul today meeting with President Moon.
    Mission Korea is staffed by almost 600 dedicated men and 
women, all working hard to advance U.S. interests in Korea and 
throughout the Indo-Pacific. If confirmed, I am excited to 
serve with this team. Importantly, the alliance and the larger 
partnership it undergirds enjoy strong bipartisan support. This 
committee and your staffs play an active and vital role in 
guiding this relationship, and I would like to underscore my 
deep appreciation for the leadership and engagement that go 
into maintaining our strong bond with South Korea.
    I have experienced this relationship firsthand through my 
experiences with Korea across an almost 40-year career in 
uniform, including as a former Indo-Pacific Command commander 
overseeing the military side of the U.S.-Korea alliance. These 
personal connections began even before I was born, as my father 
was a sailor who fought in World War II and the Korean War and 
helped teach Korean sailors at Chinhae. His stories propelled 
me to a career in the Navy. Bruni's personal connections 
started during her first tour of duty when we accompanied her 
boss to Seoul on several occasions. These experiences afforded 
us lasting friendships and a deep appreciation of Korean 
culture and history, with their profound linkages to the United 
States.
    Everywhere I traveled, whether on ships, in jungles, or the 
embassies, I saw firsthand the dedication and hard work of men 
and women committed to making our nation and our world a better 
place. Along the way, I was reminded again and again of the 
tremendous diversity of our great country. If confirmed, I will 
carry with me those many voices of America, along with an 
abiding commitment to strengthen the shared values that lie at 
the heart of our relationship with the Republic of Korea.
    I am acutely aware that our relationship with Korea is not 
one dimensional. Economically, Korea is our sixth largest 
trading partner and the fifth largest market for U.S. 
agricultural goods. Korean foreign direct investment is already 
the second largest Asian source of investment in the United 
States. As a fellow champion of the rule of law and market 
principles, Korea has shown its willingness to work with the 
U.S. to ensure free, fair, and reciprocal trade. Last year, our 
countries enjoyed a $154 billion trading relationship, 
including goods and services.
    The U.S. and Korea also share deep people-to-people ties.
    And as good as our economic relationship is, we can do even 
better. If confirmed, I will support U.S. efforts to tap 
additional export opportunities and what I see as nascent 
opportunities in the energy, medical technology, and 
information sectors. I would support enhanced access for U.S. 
firms in the Korean market and more Korean direct investment 
into the U.S. Finally, if confirmed, I will strive to further 
deepen our cultural exchanges, scientific collaboration, and 
cooperation on global issues.
    Ladies and gentlemen, I fully appreciate that I will have 
to come up to speed quickly. As is obvious to all of you, I 
have spent my life in uniform and that is where my expertise 
lies. But I promise I will work hard to learn the language and 
skill sets of diplomacy. I will even forswear acronyms. I have 
a lot to learn indeed, but I do understand the importance of 
diplomacy as an instrument of national power. As Chief of 
Mission of a large embassy with hundreds of U.S. Government 
employees, I pledge to this committee to do my utmost to keep 
them safe as they carry out their official duties and similarly 
commit to keeping the American community in South Korea 
informed of anything that could affect their safety and 
security. I testified last March to your colleagues on the 
Armed Services committee that a fully resourced State 
Department is as important as a fully resourced Defense 
Department. Robust diplomacy increases our chances of solving 
problems peacefully.
    In sum, drawing on the strength of the entire U.S. 
Government, I would, if confirmed as Ambassador, endeavor to 
deepen our partnership and alliance with the Republic of Korea. 
I am honored to be considered for this critical post and 
grateful for the opportunity to continue serving our great 
nation.
    And I look forward to your questions.[Mr. Harris's prepared 
statement follows:]


               Prepared Statement of Harry B. Harris, Jr.

    Mr. Chairman, Ranking Member Menendez, distinguished members of the 
committee, I'm honored to be with you today as President Trump's 
nominee to serve as the U.S. Ambassador to the Republic of Korea. I'm 
humbled the President has entrusted me with this opportunity to work 
with the White House and our dedicated officers at the State Department 
and the 15 other departments and agencies that make up Mission Korea to 
lead our engagement with such an important ally. Few nominees are 
fortunate enough to testify before their own senators, and I'm 
privileged to be here before Chairman Corker of Tennessee and Senator 
Rubio of Florida. I'm also grateful that Senators Nelson and Hirono 
took the time to formally introduce me. Knowing that I've not journeyed 
here alone, let me take a moment to express my love and gratitude to my 
wife, Bruni Bradley--herself a 25-year Navy veteran. A personal thanks 
as well to the many former Ambassadors who helped me these past 
months--nominees of both parties. Finally, to the men and women of U.S. 
Indo-Pacific Command, it's been a privilege and a joy to have served 
with you these past three years.
    President Trump and his administration have made clear that our 
alliance with Korea is one of our top priorities. The President hosted 
President Moon just last June and again last month. The President also 
visited Korea last November in the first state visit by a U.S. 
president in 25 years. Following this, there have been a number of 
other senior-level visits, underscoring the strength and importance of 
our bilateral relationship. In fact, Secretary Pompeo is in Seoul today 
meeting with President Moon.
    Mission Korea is staffed by over 600 dedicated men and women, all 
working hard to advance U.S. interests in Korea and throughout the 
Indo-Pacific. If confirmed, I'm excited to serve with this team. 
Importantly, the alliance and the larger partnership it undergirds 
enjoy strong bipartisan support. This committee and your staffs play an 
active and vital role in guiding this relationship and I'd like to 
underscore my deep appreciation for the leadership and engagement that 
go into maintaining our strong bond with South Korea.
    I've experienced this relationship first-hand through my 
experiences with Korea across an almost 40-year career in uniform, 
including as the former Indo-Pacific Command commander overseeing the 
military side of the U.S.-Korean alliance. These personal connections 
began even before I was born, as my father was a Sailor who fought in 
World War II and the Korean War and helped teach Korean Sailors at 
Chinhae. His stories propelled me to a career in the Navy.
    Bruni's personal connections started during her first tour of duty 
when she accompanied her boss to Seoul on many occasions. These 
experiences afforded us lasting friendships and a deep appreciation of 
Korean culture and history, with their profound linkages to the United 
States.
    Everywhere I traveled--whether on ships, in jungles, or to 
embassies--I saw first-hand the dedication and hard work of men and 
women committed to making our nation and our world a better place. 
Along the way, I was reminded again and again of the tremendous 
diversity of our great country. If confirmed, I'll carry with me these 
many voices of America, along with an abiding commitment to strengthen 
the shared values that lie at the heart of our relationship with the 
Republic of Korea.
    I'm acutely aware that our relationship with Korea is not one-
dimensional. Economically, Korea is our sixth-largest trading partner 
and the fifth-largest market for U.S. agricultural goods.
    Korean foreign direct investment is already the second largest 
Asian source of investment into the United States. As a fellow champion 
of the rule of law and market principles, Korea has shown its 
willingness to work with the United States to ensure free, fair, and 
reciprocal trade. Last year, our countries enjoyed a $153.7 billion 
trading relationship, including goods and services.
    The United States and Korea also share deep people-to-people ties. 
Almost 200,000 American citizens live, work, or are visiting in Korea 
at any given time. About 1.7 million people of Korean descent reside in 
the United States. Academic exchanges are an important part of our 
relationship with Korea, including the longstanding bi-national 
Fulbright program.
    As good as our economic relationship is, we can do even better. If 
confirmed, I'll support U.S. efforts to tap additional export 
opportunities and what I see as nascent opportunities in the energy, 
medical technology, and information sectors. I would support enhanced 
access for U.S. firms in the Korean market, and more Korean direct 
investment into the United States. Finally, if confirmed, I'll strive 
to further deepen our cultural exchanges, scientific collaboration, and 
cooperation on global issues.
    Ladies and gentlemen, the U.S.-Republic of Korea alliance has 
served as a pillar of peace and stability in the Indo-Pacific and the 
world for 65 years, cooperating closely on a wide range of global 
priorities. Our relationship is anchored by a shared commitment to 
democratic values and the rule of law. America could not ask for a 
better friend, partner, and ally than Korea.
    I fully appreciate I will have to come up to speed quickly. As is 
obvious to all of you, I've spent my life in uniform and that's where 
my expertise lies. But I promise I'll work hard to learn the language 
and skill sets of diplomacy. I'll even forswear acronyms. I have a lot 
to learn, indeed, but I do understand the importance of diplomacy as an 
instrument of national power. As Chief of Mission of a large Embassy 
with hundreds of U.S. Government employees, I pledge to this committee 
to do my utmost to keep them safe as they carry out their official 
duties, and similarly commit to keeping the American community in South 
Korea informed of anything that could affect their safety and security. 
I testified last March to your colleagues on the Armed Services 
committee that a fully resourced State Department is as important as a 
fully resourced Defense Department. Robust diplomacy increases our 
chances of solving problems peacefully. I'll also draw heavily on my 
experiences a few years ago when I was assigned as the Assistant to the 
Chairman of the Joint Chiefs, where I accompanied the Secretary of 
State abroad. In two years, I travelled to over 80 countries and saw 
up-close the business of diplomacy and the hard, often dangerous, work 
of our diplomats abroad.
    In sum, drawing on the strength of the entire U.S. Government, I 
would, if confirmed as Ambassador, endeavor to deepen our partnership 
and alliance with the Republic of Korea. I'm honored to be considered 
for this critical post and grateful for the opportunity to continue 
serving our great Nation. I look forward to your questions.


    The Chairman. Thank you very much. We will see whether you 
are able to forswear what you said.
    But go ahead, Mr. Nagy.

  STATEMENT OF HON. TIBOR PETER NAGY, JR., OF TEXAS, TO BE AN 
         ASSISTANT SECRETARY OF STATE, AFRICAN AFFAIRS

    Ambassador Nagy: Mr. Chairman, Ranking Member, and members 
of the committee, I am honored to appear before you as 
President Trump's nominee to be Assistant Secretary of State 
for African Affairs. I am grateful to the President and 
Secretary of State for their confidence in me. If confirmed, I 
very much look forward to working with Congress, especially 
this committee, to promote America's interests in Africa.
    My nearly half-century professional and personal 
association with Africa began in 1979 when I was assigned as a 
first tour officer to Lusaka, Zambia, a city I had never heard 
of, on a continent I knew little about, to the most junior 
positions at a U.S. embassy. That posting gave me a tremendous 
appreciation for Africa and its people, and I went on to 
complete eight tours in Africa, including two as U.S. 
Ambassador and three as Deputy Chief of Mission, in some of the 
most challenging environments possible.
    After retiring in 2003, I joined academia and continued 
Africa-related work by teaching about it, writing about it, and 
making multiple trips to the continent to promote ties between 
U.S. and African universities.
    In 2016, I was briefly called back to take charge of the 
U.S. embassy in Nigeria, and that experience reawakened my 
intense desire to again help promote U.S. interests on the 
continent.
    Since the last time I appeared before this committee nearly 
20 years ago, Africa has changed dramatically, mostly for the 
better. Data points indicate improvements in overall levels of 
development, education especially for girls, health, 
governance, and economic wellbeing. These improvements have 
been matched by dramatic declines in poverty, HIV infections, 
corruption, and instability. Credit goes to the generosity of 
the American people and U.S. policies for much of that 
progress, including bipartisan programs such as AGOA and 
PEPFAR, which continue to significantly help Africa.
    At the same time, Mr. Chairman, some of Africa's problems 
remain unchanged or have worsened. Terrorism and violent 
extremism have increased in scope and intensity. Some African 
leaders are perpetuating their rule through constitutional 
manipulation and increased repression. The most tragic case is 
South Sudan, born in ebullience in 2011 but since descended 
into ethnic warfare due to its uncaring leaders. And there is 
China, adversary, competitor, partner, or all three? One 
certainty is that the U.S. will have to address China's 
activities in Africa, especially since that country is offering 
itself as a more Africa-appropriate model for government and 
development.
    Africa is at a historic crossroads, and the direction it 
takes will impact its future and the security and wellbeing of 
the rest of the world. Projections are that by 2050 Africa's 
population will double to 2.5 billion people with 70 percent 
under 30. Nigeria alone will surpass the U.S. with 350 million 
people, and most of this growth will take place in Nigeria's 
north, its most impoverished region. Yet young Africans will 
have similar life ambitions to young people everywhere. If 
their dreams are frustrated by conflict, misrule, or lack of 
opportunities, the results will be catastrophic. If, on the 
other hand, they encounter positive prospects and good 
governance, Africa's youth will be a dynamic force for global 
progress and prosperity.
    Mr. Chairman, the U.S. is well placed to benefit from the 
second scenario. A well-governed, stable Africa, providing 
opportunities to its people and welcoming U.S. businesses as 
partners in development, is achievable. I saw this firsthand 
when I met in Abuja with some returning participants in the 
Young African Leaders Initiative, and I worked with another 
group last summer at Texas Tech University. They were some of 
the brightest and most impressive young people I have met 
anywhere and very favorably disposed towards our country and 
our principles. They are the future of Africa, not the corrupt 
dinosaurs who want to stay presidents for life immaterial of 
the harm they cause their own people. If confirmed, I look 
forward to working with the committee to promote the types of 
U.S. policies which can help bring that about.
    And it is my pleasure and honor to introduce my dear wife 
of 47 years and my partner in diplomacy, Jane Nagy, sitting 
right behind me.
    [Ambassador Nagy's prepared statement follows:]


                Prepared Statement of Tibor P. Nagy Jr.

    Mr. Chairman, Ranking Member, and members of the committee, I'm 
honored to appear before you as President Trump's nominee to be 
Assistant Secretary of State for African Affairs. I am grateful to the 
President and Secretary of State for their confidence in me. If 
confirmed, I very much look forward to working with Congress, and 
especially this committee, to promote America's interests in Africa.
    This nomination is especially meaningful to me since I started life 
in America as a political refugee, having slipped out of Communist 
Hungary with my father just steps ahead of the secret police who were 
going to arrest and execute him for having fought against the Soviets 
during our brief 1956 revolution. America not only generously opened 
its doors to us, but also provided us the same opportunities available 
to native born citizens. He went on to serve the U.S. many years 
overseas in international development, while I had an opportunity to 
become a U.S. diplomat and represent my new country abroad. When I met 
diplomatic colleagues from other nations, especially after I became a 
U.S. Ambassador, they were often stupefied that America would allow 
non-native born citizens to achieve the rank of Ambassador--in their 
countries that could never happen. I always assured them that when 
someone becomes an ``American'' through naturalization, their 
citizenship is just as real as being born here. America has blessed my 
family in so many ways--I am beyond grateful that I can serve her in 
return.
    My nearly half-century professional and personal association with 
Africa began in 1979 when I was assigned as a first tour officer to 
Lusaka, Zambia--a city I had never heard of, on a Continent I knew 
little about--to the most junior of positions at a U.S. Embassy.That 
posting gave me a tremendous appreciation for Africa, and its people, 
and I went on to complete eight tours in Africa--including two as U.S. 
Ambassador, and three as Deputy Chief of Mission--in some of the most 
challenging environments possible. After retiring in 2003, I joined 
academia and continued Africa-related work by teaching about it, 
writing about it, and making multiple trips to the Continent to promote 
ties between U.S. and African universities. In 2016, I was briefly 
called back to take charge of the U.S. Embassy in Nigeria, and that 
experience reawakened my intense desire to again help promote U.S. 
interests on the Continent.
    Since the last time I appeared before this committee nearly twenty 
years ago, Africa has changed dramatically--mostly for the better. Data 
points indicate improvements in overall levels of development, 
education (especially for girls), health, governance and economic well-
being. These improvements have been matched by dramatic declines in 
poverty, HIV/AIDS infections, corruption, and instability. Credit goes 
to the generosity of the American people and U.S. policies for much of 
that progress--including bipartisan programs such as AGOA and PEPFAR, 
which continue to significantly help Africa.
    At the same time, Mr. Chairman, some of Africa's problems remain 
unchanged, or have worsened. Terrorism and violent extremism have 
increased in scope and intensity. Some African leaders are perpetuating 
their rule through constitutional manipulation and increased 
repression. The most tragic case is South Sudan--born in ebullience in 
2011 but since descended into ethnic warfare due to its uncaring 
leaders. And there is China--adversary, competitor, partner--or all 
three? One certainty is that the U.S. will have to address China's 
activities in Africa, especially since that country is offering itself 
as a more Africa-appropriate model for government and development.
    Africa is at a historic crossroads, and the direction it takes will 
impact its future and the security and well-being of the rest of the 
world. Projections are that by 2050 Africa's population will double--to 
2.5 billion people, with 70 percent under 30. Nigeria alone will 
surpass the U.S. with 350 million people, and most of this growth will 
take place in Nigeria's North, its most impoverished region. Yet young 
Africans will have similar life ambitions to young people everywhere. 
If their dreams are frustrated by conflict, misrule, or lack of 
opportunities, the results will be catastrophic. If, on the other hand, 
they encounter positive prospects and good governance, Africa's youth 
will be a dynamic force for global progress and prosperity.
    Mr. Chairman, the U.S. is well-placed to benefit from the second 
scenario. A well-governed, stable Africa, providing opportunities to 
its people and welcoming U.S. businesses as partners in development, is 
achievable. I saw this first-hand when I met in Abuja with some 
returning participants in the Young African Leaders Initiative, and 
when I worked with another group last summer at Texas Tech University. 
They were some of the brightest and most impressive young people I have 
met anywhere--and very favorably disposed toward our country and our 
principles. They are the future of Africa, not the corrupt dinosaurs 
who want to stay Presidents for Life immaterial of the harm they cause 
their own people. If confirmed, I look forward to working with the 
committee to promote the types of U.S. policies which can help bring 
that about.


    The Chairman. Thank you for being with us, and thank you 
for that testimony.
    Mr. Schenker?

STATEMENT OF DAVID SCHENKER, OF NEW JERSEY, TO BE AN ASSISTANT 
            SECRETARY OF STATE, NEAR EASTERN AFFAIRS

    Mr. Schenker. Mr. Chairman, Ranking Member Menendez, 
members of the Senate Foreign Relations committee, it is an 
honor to appear before you this morning as the nominee to 
become Assistant Secretary of State for Near East Affairs.
    I greatly appreciate the members of the committee making 
time in recent weeks to meet me with me and exchange views. If 
confirmed, it would be my intention to engage in consultation 
with Congress routinely.
    I would like to thank the President of the United States 
and Secretary of State Pompeo for my nomination. If confirmed, 
it would be an honor to serve our country at the Department of 
State.
    I am grateful some of my family members can join me this 
morning. My seemingly angelic children, Ethan and Dylan 
Schenker, are here. So are my mother and stepfather, Linda and 
Abraham Davis, and my aunt and uncle, Jane and Ken Friedland. 
My father and stepmother, Michael and Judy Schenker, could not 
be here today but are no doubt watching on the Web.
    Let me also take this opportunity to thank my former 
bosses, mentors, and colleagues, without whose support I would 
not be here today.
    The portfolio of the Assistant Secretary of State for Near 
East Affairs is expansive. I have, in a sense, been preparing 
for this job for the past 3 decades. My academic background and 
the entirety of my professional career has been focused on the 
Middle East. I have spent 4 years living in the region. In the 
early 1990s, I worked for a USAID contractor on projects in 
Egypt and Jordan. For the better part of 2 decades, I have 
researched and written about the region as a fellow at the 
Washington Institute for Near East Policy, a leading 
nonpartisan think tank. And from 2002 to 2006, I served as 
Levant director in the Office of the Secretary of Defense, 
advising senior policymakers at the Pentagon on Jordanian, 
Syrian, Lebanese, Israeli, and Palestinian affairs.
    Over these decades, I have had the privilege of knowing and 
working with many of the outstanding diplomats who have served 
with such distinction as Assistant Secretary of Near East 
Affairs. I worked with current acting Assistant Secretary David 
Satterfield during the Bush administration. I traveled to Syria 
in 2004 with then Assistant Secretary William Burns. I know 
former Assistant Secretary Anne Patterson. This is an 
illustrious and impressive cohort of diplomats who handled an 
incredibly difficult job with commitment and dedication. If 
confirmed, I would be humbled to be counted among this group.
    The responsibilities of the Assistant Secretary of State 
for Near East Affairs stretch from Morocco to Iran to Yemen. It 
is an AOR that faces enormous challenges, including failed 
states, horrific terrorism, acute humanitarian crises, and 
continued efforts by the regime in Tehran to destabilize the 
region. Given our critical alliances, the region's natural 
resources, its vital sea lanes, and the enormous potential of 
its population, it is also a region of great strategic import 
to the United States.
    At the front line confronting these challenges and taking 
advantage of the opportunities are the highly professional men 
and women of the U.S. Department of State's Near East Bureau. 
These Foreign Service officers and civil servants are dedicated 
and courageous. They make great sacrifices for our country. 
Over the past 2 decades as a scholar at the Washington 
Institute and as a policy official serving in the Department of 
Defense, I have worked closely with NEA and have great respect 
for both the professionalism and expertise of these career 
professionals. They work alongside their impressive colleagues 
in the U.S. military and from other departments, whom I hold in 
the highest esteem and with whom I would seek to coordinate as 
closely as possible.
    If confirmed, it would be a great privilege to serve 
alongside these American patriots helping to advance and secure 
U.S. interests in the Middle East. There is a real need to 
strengthen alliances with our traditional partners, to defeat 
ISIS and other terrorist organizations, to confront and roll 
back destabilizing and pernicious Iranian behavior, and to work 
to build a more peaceful and secure region.
    The U.S. faces a series of complex strategic challenges in 
the Middle East, which require the application of all tools of 
American power to mitigate and now, more than ever, especially 
diplomacy. As we know all too well, what happens in the Middle 
East does not stay in the Middle East. Washington's regional 
alliances are a force multiplier in safeguarding U.S. interests 
at home and abroad. They need to be nurtured through diplomatic 
engagement.
    If confirmed, I look forward to working closely with this 
committee and with the Congress as a whole to address these and 
other national security challenges facing our country.
    I am grateful for your consideration of my nomination, and 
I look forward to your questions. Thank you.
    [Mr. Schenker's prepared statement follows:]


                  Prepared Statement of David Schenker

    Mr. Chairman, Ranking Member Menendez, members of the Senate 
Foreign Relations committee--it is an honor to appear before you this 
morning as a nominee to become Assistant Secretary of State for Near 
East Affairs.
    I greatly appreciate the members of the committee making time in 
recent weeks to meet with me and exchange views. If confirmed, it would 
be my intention to engage in consultation with Congress routinely.
    I would like to thank the President of the United States and 
Secretary of State Pompeo for my nomination. If confirmed, it would be 
an honor to serve our country at the Department of State.
    I am grateful some of my family members could join me this morning.
    My children, Ethan and Dylan Schenker, are here. So are my mother 
and stepfather Linda and Abraham Davis, and my Aunt and Uncle Jane and 
Ken Friedland. My father and stepmother, Michael and Judy Schenker 
could not be here today, but are no doubt watching on C-Span.
    Let me also take this opportunity to thank my former bosses, 
mentors, and colleagues, without whose support I would not be here 
today.
    The portfolio of the Assistant Secretary of State for Near East 
Affairs is expansive. I have, in a sense, been preparing for this job 
for the past three decades.
    My academic background and the entirety of my professional career 
has been focused on the Middle East. I've spent four years living in 
the region. In the early 1990s, I worked for a USAID contractor on 
projects in Egypt and Jordan. For the better part of two decades, I 
have researched and written about the region as a fellow at the 
Washington Institute for Near East Policy, a leading non-partisan 
think-tank. And from 2002-2006, I served as Levant director in the 
Office of the Secretary of Defense, advising senior policymakers at the 
Pentagon on Jordanian, Syrian, Lebanese, Israeli, and Palestinian 
Affairs.
    Over these decades, I have had the privilege of knowing and working 
with many of the outstanding diplomats who have served with such 
distinction as Assistant Secretary of Near East Affairs. I worked with 
current acting Assistant Secretary David Satterfield during the Bush 
administration. I travelled to Syria in 2004 with then Assistant 
Secretary William Burns. I know former Assistant Secretary Anne 
Patterson. This is an illustrious and impressive cohort of diplomats, 
who handled an incredibly difficult job with commitment and dedication. 
If confirmed, I would be humbled to be counted among this group.
    The responsibilities of the Assistant Secretary of State for Near 
East Affairs stretch from Morocco to Iran to Yemen. It is an AOR that 
faces enormous challenges, including failed states, horrific terrorism, 
acute humanitarian crises, and continuous efforts by the regime in 
Tehran to destabilize the region. Given our critical alliances, the 
region's natural resources, its vital sea-lanes, and the enormous 
potential of its population, it is also a region of great strategic 
import to the United States.
    At the front line confronting these challenges and taking advantage 
of these opportunities are the highly professional men and women of the 
U.S. Department of State's Near East Bureau. These Foreign Service 
Officers and Civil Servants are dedicated and courageous; they make 
great sacrifices for our country. Over the past two decades--as a 
scholar at the Washington Institute for Near East Policy and as a 
policy official serving in the Department of Defense--I have worked 
closely with NEA, and have great respect for both the professionalism 
and expertise of these career professionals. They work alongside their 
impressive colleagues from the U.S. military and from other 
departments, whom I hold in the highest esteem and with whom I would 
seek to coordinate as closely as possible.
    If confirmed, it would be a great privilege to serve alongside 
these American patriots helping to advance and secure U.S. interests in 
the Middle East. There is a real need to strengthen alliances with our 
traditional partners, to defeat ISIS and other terrorist organizations, 
to confront and roll back destabilizing and pernicious Iranian 
behavior, and to work to build a more peaceful and secure region.
    The U.S. faces a series of complex strategic challenges in the 
Middle East, which require the application of all tools of American 
power to mitigate-and now more than ever, especially diplomacy. As we 
know all too well, what happens in the Middle East doesn't stay in the 
Middle East. Washington's regional alliances are a force multiplier in 
safeguarding U.S. interests at home and abroad; they need to be 
nurtured through diplomatic engagement.
    If confirmed, I look forward to working closely with this 
committee, and with the Congress as a whole, to address these and other 
national security challenges facing our country.
    I am grateful for your consideration of my nomination, and I look 
forward to your questions.
    Thank you.


    The Chairman. Again, we thank all three of you.
    I am going to reserve my time and turn to our ranking 
member, Senator Menendez. Next in line will be Senator Isakson. 
I am going to run and go vote and come back.
    Senator Menendez. Well, thank you, Mr. Chairman. Thank you 
all for your testimony.
    Admiral Harris, as PACOM commander, you were outspoken, 
rightly in my view, about the nature and extent of North 
Korea's nuclear threat. And that threat is real. Right?
    Mr. Harris. It is real.
    Senator Menendez. So do you think we no longer need to 
worry about North Korea's nuclear threat?
    Mr. Harris. No, Senator. I think we must continue to worry 
about the nuclear threat.
    Senator Menendez. I appreciate that because I know the 
President said the other day that after Singapore, we can sleep 
well because we no longer have to worry about North Korea's 
nuclear threat. But I did not sleep much better. I understand 
that there are still nuclear warheads. There are still 
intercontinental ballistic missiles. There is still a nuclear 
fissile material development process. And so until that is 
dismantled, I do not think we can rest comfortably at the end 
of the day.
    Let me ask you this. Also from your experience, do you 
think that it is important to have military exercises between 
the United States and South Korea as our forces are there, I 
think about 28,000, and as they ultimately prepare themselves 
for any defensive eventuality?
    Mr. Harris. Senator, in my previous capacity, I spoke very 
strongly about the need to continue with military exercises, 
most notably in 2017, but we were in a different place in 2017. 
North Korea was exploding nuclear weapons. They were launching 
ballistic missiles almost willy-nilly. And if war was not 
imminent, it was certainly possible, maybe even likely.
    I think today, following the President's summit with Kim 
Jong-un in Singapore, I think we are in a dramatically 
different place. I think the whole landscape has shifted, and I 
believe that we should give major exercises a pause to see if 
Kim Jong-un in fact is serious about his part of the 
negotiations. I have spoken in the past about the need to bring 
Kim Jong-un to his senses and not to his knees, and I think the 
President's efforts in Singapore did just that.
    Senator Menendez. Do you think these are war games?
    Mr. Harris. Well, you can call--I think the President----
    Senator Menendez. Would you in your present role call it 
war games?
    Mr. Harris. I would call them major exercises.
    Senator Menendez. Major exercises.
    Do you think they are provocative?
    Mr. Harris. I think they are certainly of concern to North 
Korea and to China. But we do them in order to exercise our 
ability to work and interoperate with our South Korean allies.
    Senator Menendez. As our Ambassador, you will have to be 
dealing with the South Koreans who have to be concerned that 
they did not know about it. The Japanese did not know about it. 
And there is a real challenge when these countries are a 
critical part of us ultimately coming to the end goal that we 
all desire and want to see. So I think it is going to be 
critically important about how you speak about those issues 
when you get there.
    Mr. Harris. I agree, Senator.
    Senator Menendez. Let me turn to Mr. Schenker. In the 
Countering American Adversaries Through Sanctions Act, the 
Congress, signed into law by the President, required the 
administration to deliver a comprehensive Iran strategy by 
January of 2018. It is now June the 12th or so, and we have yet 
to receive a comprehensive strategy.
    If you are confirmed and this has not been completed by 
that time, will you commit to the committee that you will work 
with the Secretary to produce a comprehensive strategy on Iran 
that has to be delivered to the Congress according to law?
    Mr. Schenker. Yes, sir.
    Senator Menendez. Now, let me ask you. What do you think 
are elements of such a strategy?
    Mr. Schenker. Thank you, Senator.
    There are several different elements. One would be, for 
example, the diplomatic strategy; that is, to work with our 
European partners to get them on board. While we have some 
disagreements with our European allies, we can all agree that 
the nuclear development, the proliferation of missiles and 
Iranian destabilizing regional activities are all a problem. So 
on the diplomatic front, the sanctions and also maintaining, at 
least for the time being, the presence in Syria, which prevents 
the establishment of a land bridge, among other things for Iran 
to the Mediterranean, working with the U.S. military, among 
other things, to prevent the shipment of missile components to 
the Houthis, for example, working with the Government in Iraq 
to try and establish a government that is inclined toward good 
relations with Washington, not a wholly owned subsidiary of 
Tehran, et cetera.
    Senator Menendez. I appreciate that. I also hope we will 
think about how our Gulf partners play a more strategic role 
than they have so far.
    I asked you in our private meeting and I warned you about 
the possibility of this question, so I am not blindsiding you. 
Would the purchase of the S-400 system constitute a significant 
transaction with the Russian defense sector? There are public 
reports that Saudi Arabia and Qatar have been discussing 
purchasing the S-400. If either government proceeds with this 
acquisition, would this trigger CAATSA sanctions under section 
231?
    Mr. Schenker. Senator, if confirmed, I would make clear to 
Saudi Arabia and our allies--and thank you for your leadership 
on CAATSA, by the way. I would make clear to our allies and 
friends in the region that the sanctions are intended to exact 
cost on Russia for its human rights violations, for its 
behavior in Ukraine, for its meddling in U.S. elections. And I 
would work with our allies to dissuade them or encourage them 
to avoid military purchases that would be potentially 
sanctionable. In other words, I would tell Saudi Arabia not to 
do it.
    Senator Menendez. I appreciate that answer, and I 
appreciate your diplomacy in how you are trying to answer my 
question. I will leave it at this--also Egypt seeking to 
purchase 50 fighter jets and 46 helicopters from Russia. These 
entities who are our allies must understand that under U.S. 
law, under CAATSA, the purchase of such systems ultimately are 
sanctionable, and we will press very hard on the question of 
pursuing those sanctions, should they choose to do so. And I 
hope you will communicate that in your role.
    Mr. Schenker. Absolutely, Senator. If confirmed, I will 
implement the law.
    Senator Menendez. Thank you. My time has expired but I will 
come back. Ambassador, I do not want you to think you are left 
out of the process of my questions.
    Senator Isakson?
    Senator Isakson. Thank you, Senator Menendez. I appreciate 
it.
    I agree with your comments about the Admiral. He is 
ultimately qualified, very qualified, and a great nominee.
    I appreciate you all being here today.
    Mr. Nagy, thank you for accepting a tremendous challenge in 
African affairs at the Department. Do you happen to know one of 
your predecessors by the name of Johnnie Carson?
    Ambassador Nagy: Yes, Senator. He is a good friend of mine.
    Senator Isakson. Of all the people I have got to know in my 
travels to Africa and the work I have done in Africa since I 
came to Congress, Johnnie is the most knowledgeable, 
insightful, and most well received American on the continent of 
Africa. So you did know him, which I thought you did, but if 
you had not, I wanted to make sure you do. Since you do know 
him, take advantage of him because he is a terrific asset.
    Ambassador Nagy: Absolutely. When I was Ambassador in 
Ethiopia, he was Ambassador in Kenya.
    Senator Isakson. You focused on the Sudan in part of your 
testimony. You mentioned the Sudan. That is a horrible problem 
that is getting worse by the day. We have tried a special 
envoy. I knew General Grayson. The comprehensive peace 
agreement we worked on to finally get a referendum for 
independence, which we finally got, but it never did anything 
because of the violence, the murder, the assassination, and the 
economic stealing from one another's assets have just destroyed 
the environment there.
    What initiative would you try to move us to in South Sudan 
to go from a caretaker of chaos, which I think is where we are 
right now, to a caretaker of a route to peace and security?
    Ambassador Nagy: Senator, thank you for that question.
    In my view, South Sudan is one of the greatest tragedies in 
the world right now and absolutely needless. It should never 
have happened, especially given the positive role the United 
States played in creating South Sudan.
    Senator, if confirmed, I promise you I will look for every 
pressure point possible, including the ones that have not yet 
been pushed, to make sure that those who are complicit in these 
tragedies have to pay for that, so that they do not have places 
where they can park their money, they do not have places where 
they can go and enjoy their vacations and go shopping while 
their people are dying, women are being raped, and people are 
going hungry and chased from their homes. I truly believe that 
I would put that at the top of my inbox, if confirmed.
    Senator Isakson. Well, it is going to take our leadership 
to do that. Al Bashir in the north is not going to be a help to 
us at all. He is not going to be a problem because he is 
indicted in the International Criminal Court. But he is not 
going to be a help to us. But the South Sudanese are doing a 
pretty good job of messing up by themselves. So we need to move 
them forward as much as we can.
    On that point also, last week Nathaniel, who was a former 
intern of mine, who was a refugee at Clarkston, Georgia, about 
15 years ago, is one of the lost boys of Sudan. He came to my 
office last week to share with me some of his experiences in 
the Sudan since he has gone back to try and bring back that 
country. He said the biggest need that they have on the ground 
is a recognition by the public, the people of Sudan, that the 
United States is engaged, that the Government of Sudan is 
getting engaged with them, and that we are going to be a part 
of moving Sudan forward.
    I asked him. I said, are we not visible now? And he said, 
not as visible as we should be. I think that is one of the 
things you are going to have to focus on, the extent of the 
visibility of our country and our commitment to help them come 
out of their problems is there, but that they are willing to 
take a partnership with us and do that.
    Ambassador Nagy: Senator, I can promise you, if confirmed, 
the South Sudanese will realize just how involved the United 
States is. Being one of the few U.S. Ambassadors who ever spent 
time in a refugee camp as a refugee and not just a visitor, I 
am passionate about refugee issues.
    Senator Isakson. Well, you are going to do a great job, and 
I am certain of that. And Africa is the continent of the 21st 
century for the United States in many ways. The population 
explosion as you referred to in Nigeria, which will be bigger 
than the United States by the half point of this century--it is 
important we have them as friends, but it is important that we 
help them grow economically, and using AGOA, which you also 
referred to in your remarks, is a way to do that. Senator 
Coons, who was here, and I 2 years in the work on AGOA used 
that as a lever to get the South Africans to open South Africa 
to domestic poultry, which happens to be the biggest export of 
Georgia and Delaware, which is why Senator Coons and I were 
interested in the first place. But the point is we can use--
they want to business with America. We need to use our assets 
and use that trade agreement to open more doors of opportunity 
for Africans but more doors of opportunity for Americans too.
    Ambassador Nagy: Absolutely, Senator. I agree with you 
totally.
    Senator Isakson. My last point on--not my last point, but 
the last point I have time to really talk about. I want to go 
to South Korea. There have been some questions on what the 
President offered when he offered to suspend or temporarily 
postpone or postpone the second round of exercises in South 
Korea this year pending the North Koreans beginning to do what 
they need to do in the agreement that they made with America at 
Singapore.
    As one who has served in the military--and I was in the Air 
Force. We had ORIs all the time, ordinance readiness 
inspections, where we were, at the drop of the hat and a phone 
call, called to come and go through an exercise as if we were 
at war, but we, of course, were not. Some could call it a war 
game. Some would call it an exercise. Whatever.
    Does putting off or postponing what would have otherwise 
been a regularly scheduled exercise in any way damage our 
readiness in that part of the world?
    Mr. Harris. Senator, for short periods of time, no. But I 
believe, without knowing with any certainly, the President was 
referring to major exercises. The Vice President has stated 
since then that regular readiness and training evolutions will 
continue. So I view that in terms of the ORI that you mentioned 
and service-related exercises and things like that will 
continue. But I do not know that for a fact. That would be up 
to the Department of Defense to determine what is allowable 
under the new construct. But I am convinced--and I know the 
administration has underscored--that our alliance commitments 
to South Korea remain ironclad and have not changed.
    Senator Isakson. Well, I agree with you. I am not good at 
acronyms either. ORI is an old acronym because I am an old 
American soldier. So believe me, it could be a new name by now. 
But I think it is not the type of exercise that they were 
referring to in the agreement at Singapore.
    But there is no place in the world that we are better 
prepared with manpower and investment and infrastructure than 
in South Korea to carry through on any commitment we have to 
the South Korean people or the people of Japan or any other 
people in that part of the Pacific. Would you agree with that?
    Mr. Harris. I would, sir.
    Senator Isakson. And I do not think suspending a temporary 
exercise in any way diminishes our ability to continue to do 
everything we have promised to do and have partnered with those 
countries to do to enjoy the peace and security and freedom in 
that part of the world.
    Mr. Harris. I agree, Senator. I think that we do need to 
create some breathing space for the negotiations to continue 
and to assess whether Kim Jong-un is serious on his part of the 
deal or not. And I think this gives us that opportunity.
    Senator Isakson. Well, as my World War II Navy captain 
father-in-law, William Davis--and he flew in the south Pacific 
for 20 years--used to say, if you got a tough job to do, give 
it to the Navy. So we are going to give you a tough job, and I 
am sure you can do it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations and thank you to each of you for your 
nominations and for your willingness to serve, and thank you to 
your families also for being willing to make that kind of a 
commitment.
    Admiral Harris, I want to follow up on Senator Isakson's 
question about the military exercises not in terms of what that 
might do to readiness, but what the message is that that sends 
to not just our allies in the region but also to our 
adversaries. There have been news reports about China's 
pleasure at our announcing this kind of a concession. Do you 
agree that this is a benefit to China?
    Mr. Harris. I think it is too early to tell, Senator, if it 
is of benefit to China or not. I do know that the Chinese 
Foreign Minister Wang said that this was creating new history. 
But President Moon as well talked about the talks being the 
talks of the century. And so I think that South Korea is 
looking at this in a positive way, this being the summit. And I 
believe that we are in fact in a new landscape with North 
Korea. For the first time certainly in my career, we are at a 
place where peace is a possibility, and I think we should be 
encouraged by that. I have said before that we can be hopeful 
and we can even be optimistic as long as we are realistic also, 
and I am convinced that the administration has that realism at 
heart as we move forward in this new place that we are in.
    Senator Shaheen. And if we are able to successfully move 
forward towards denuclearization, will South Korea still face a 
conventional military threat from North Korea and a cyber 
threat? Do you think those issues should be part of 
negotiations around denuclearization?
    Mr. Harris. I think ultimately all of those things should 
be on the table. Right now, we are focused--and rightfully so--
on the nuclear aspects of the North Korean capability, but 
ultimately we seek peace on the peninsula. No one has a greater 
stake on peace on the peninsula than South Korea. I mean, they 
are the ones that went to war and are still technically at war 
with the North. And I think that that encompasses all types of 
capabilities that the North has. But we start with the nuclear 
piece. That is the one that threatens the region, as well as 
parts of the United States, potentially all of the United 
States, and we start there. And then we work for peace on the 
peninsula writ large.
    Senator Shaheen. Thank you.
    Mr. Schenker, as I am sure you are aware, yesterday the 
Saudi-led coalition in Yemen began an offensive to take the 
port city of Hodeidah. There are dramatic reports about what 
this assault will mean for people in Yemen, the number of 
people who will be killed. The U.N. has pulled out all of their 
humanitarian personnel there and the U.N. envoy has suggested 
that this is a major impediment to efforts to bring parties to 
the table to have a peaceful resolution in Yemen.
    Should the United States be doing more to urge the Saudi-
led coalition to stop that invasion and to come to the table?
    Mr. Schenker. Thank you, Senator.
    It is my understanding that the United States had advised 
the Emirati and Saudi forces not to go to Hodeidah. The 
Secretary has now made a statement a few days ago on this, 
recognizing not only the security concerns of the Saudis and 
Emiratis but also holding the Emiratis and the Saudis to their 
humanitarian commitments.
    I am very concerned about the impact of the move on 
Hodeidah. As you know, 22 million out of 30 million Yemenis are 
food insecure. Hodeidah is the largest port for humanitarian 
and commercial goods going into the country. If there was an 
interruption, that would be very serious to the Yemeni people. 
If confirmed, I would make every effort to get all the parties 
to the table with the envoy, Martin Griffiths, immediately. 
That would be a top priority, yes.
    Senator Shaheen. And are there other tools that we have, 
incentives, disincentives that we have that we should be using 
that we are not currently using?
    Mr. Schenker. Senator, I do not know. I have not been privy 
to the deliberations or the representations with the Saudis and 
the Emiratis. I think there is more that can be done in terms 
of incentives. I would have to, let us say, consult with 
colleagues at the DOD, if confirmed. But, yes, I think there 
are ways to encourage them.
    Senator Shaheen. Thank you. As I am sure you are aware, 
this committee has weighed in on the Yemeni conflict in a way 
that suggests that we should put more pressure on the Saudi-led 
coalition. So I certainly appreciate your commitment to do 
that, if confirmed.
    Are you aware, Mr. Schenker, that the State Department is 
withholding $200 million in stabilization funding for Syria in 
areas that have previously been controlled by ISIS?
    Mr. Schenker. Yes, Senator.
    Senator Shaheen. Can you explain what the reasoning is 
behind that?
    Mr. Schenker. My understanding is that the administration 
is conducting an assessment of this aid to determine what of 
this is appropriate and perhaps inappropriate. It is my general 
view that groups such as the White Helmets are doing 
outstanding and important work and other recipients of U.S. 
funding, local councils, et cetera who had been receiving money 
were doing important work to create the conditions in local 
communities that would prevent the reemergence of ISIS 2.0, for 
example. But I do not have any visibility into the ongoing 
administration review, but if confirmed, I would be happy to 
come talk to you about it.
    Senator Shaheen. I appreciate that.
    Can you also--beyond eliminating ISIS, can you discuss what 
you believe is the United States' policy in Syria and what our 
long-term strategy is?
    Mr. Schenker. Well, I can take a shot at it.
    Senator, we have troops in Syria right now that are working 
with our allies there and doing excellent work to seek the 
remaining pockets of ISIS out in the east. They are also 
helping to train local security forces doing ordinance 
disposal, humanitarian demining, and generally working to 
create the conditions whereby ISIS 2.0, follow-on groups, Al 
Qaeda do not return. All this is very important work.
    While the U.S. forces are there, there is another benefit 
which is that I think it strengthens the U.S. hand in its 
representations with Moscow over the future disposition of 
Syria.
    Long-term the President has said we intend to depart. My 
understanding is that there are deliberations within the 
administration as to when that will occur. The administration 
appears to still be committed to the end of Assad himself.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    And first to Admiral Harris, thank you for your willingness 
to serve. I enjoyed our meeting together and I have enjoyed our 
meetings over the years, including briefings you have given us 
in your role as PACOM commander. You are going at a critical 
time, obviously, not just for Korea but for the region and the 
world. And you are going to be part of a new team. You are 
going to be part of the Pompeo team now. And as you say, you 
have a lot of background and experience on the military side, 
which will be very helpful.
    I do think that we have a real opportunity here and there 
is an opening. We need to be clear-eyed, as you and I have 
discussed, about what the challenges are. We certainly, based 
on experience, cannot be trusting of what North Korea says in 
terms of their commitments because they have made commitments 
in the past that they have not honored. But it is an 
opportunity, and I do believe that we ought to give the 
President and the administration the space to be able to 
negotiate what could be an historic agreement with regard to 
the Korean Peninsula and the denuclearization that all of us 
hope for.
    I want to follow up on China just for a second because you 
heard from Senator Shaheen that perhaps China has a little 
different view than we do about what the future ought to look 
like, particularly as I look at it, not just about our nuclear 
presence on the peninsula because we do provide that nuclear 
umbrella, but also our troops and also exercises.
    Are you concerned that China will push for the North 
Koreans to demand the total withdrawal of U.S. troops in Korea 
or redeployment of the THAAD missile defense system as a 
condition that, in my view, would weaken America's military 
posture in the region? And if so, how would you deal with that?
    Mr. Harris. Senator, I do not know how China will react 
with regard to pressuring North Korea as a negotiating partner 
of the United States. I do know, based on my previous job, that 
China is very unhappy with the placement of the THAAD missile 
system, the terminal high altitude area defense missile system, 
in South Korea. But that was an alliance decision taken up by 
both the Republic of Korea and the United States together. And 
I think it is important--it is critical--that the decisions--as 
we go forward here in this new place that we are in, that the 
decisions that we make with regard to troop levels, with regard 
to exercises, and with regard to everything else that affects 
the alliance, that those decisions be taken together with our 
South Korean ally. Now, these must be alliance decisions and 
not unilateral decisions.
    I think one of the jobs that I will have, if confirmed as 
the Ambassador, is to implement policy that comes from 
Washington, that comes from the Secretary of State and the 
President and also to stay synchronized with our South Korean 
ally. And that will be the good work of diplomacy I believe.
    Senator Portman. Speaking of that for a moment, the 
interoperability between the U.S. forces and the ROK forces is 
obviously a critical part of the security there. And my 
understanding is that President Moon has voiced support for an 
early transfer of wartime control of operational forces, the 
OPCON forces from the United States to South Korea, in other 
words, taking away operational control from the U.S. Is that a 
good idea? Are they ready?
    Mr. Harris. At some point they will be ready.
    Senator Portman. Are they ready now?
    Mr. Harris. They are not ready today. The transfer of 
operational control, OPCON transfer--we have agreed with South 
Korea that it must be conditions-based, and when those 
conditions are met, rather than time-based, then they will be 
ready to do that. That is hard work. That is ongoing right now 
between U.S. Forces Korea, Pacific Command, and DOD to work 
with their counterparts in Korea to determine those conditions 
and when those conditions will be met.
    Senator Portman. Putting on your new State Department hat--
and I am confident you will be confirmed, and I am pleased 
again you stepped up to do this--what do you think our posture 
ought to be with regard to human rights abuses in North Korea? 
As you and I discussed, I come from Ohio, very involved in the 
release of Otto Warmbier, and the abhorrent behavior he 
received at the hands of the North Koreans is something we can 
never forget. But there are many North Koreans who have also 
been subject to human rights abuses, including war camps.
    Should that be part of any agreement with North Korea?
    Mr. Harris. I think human rights should be a part of 
discussions. The President did raise them. And as a nation and 
certainly as a department, we were very concerned with the 
gross human rights violations evidenced by the North Korean 
regime.
    Senator Portman. Thank you again, Admiral Harris, and we 
wish you the best of luck. You are going to be a critical part 
of these negotiations going forward.
    Mr. Schenker, just briefly and I have got to run and go 
vote. I am probably holding things up over there. What do you 
think the prospects are for Iran and other parties to continue 
implementing the JCPOA. This is the Iran agreement that America 
has now withdrawn from. Would it be the administration's intent 
that we continue to work with our European allies to come up 
with a new agreement? What would be your view on that?
    Mr. Schenker. Senator, thank you for the question.
    I do not know where the administration is at on that 
exactly. It seems to me that the Europeans can make their own 
decisions on whether to pull out or not, but the secondary 
sanctions that will be imposed on companies that are doing 
business may eventually make the Iranians leave. I do not know 
how this is going to play out, but it seems that the main 
priority of the administration and, if confirmed, one of my 
main priorities will be getting a new agreement that 
incorporates all of the elements, whether it is Iranian 
nuclear, countering Iranian destabilizing regional behavior, 
and the missile proliferation.
    Senator Portman. Yes. Destabilizing behavior I think is the 
part that we missed, and look what has happened in the last 
several years with regard to Hezbollah in Syria in particular 
but also as we see in Yemen and elsewhere.
    I need to run and vote. My time has almost expired. Mr. 
Nagy, lots of questions for you, but I want to follow up, if I 
could, in writing on the Okavango Delta legislation that we are 
trying to work on here in the Senate and get your input on 
that.
    Ambassador Nagy: Sure.
    Senator Portman. And I thank you all for your willingness 
to serve.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    And let me thank all three of our nominees. You have all 
had very distinguished careers, and we very much appreciate 
your willingness to serve in positions that are so critically 
important at this time on foreign policy and national security 
issues. And we thank your families for your willingness.
    I want to start--some of my colleagues have already talked 
about the dimension of human rights and making sure that that 
is a top priority in your responsibilities, whether it is one 
country in South Korea or the regions of Africa and the Near 
East.
    So I want to start with Ambassador Nagy. And I told you 
outside that you might get off, but let me start with you, if I 
might.
    The comment you made about leaders in Africa wanting to 
hold onto power rather than allowing their countries to develop 
I thought was a very poignant point, and I could not agree more 
with that assessment.
    So let me talk about a country where they have a new 
leader, which is Ethiopia. You are familiar with that country. 
I had the opportunity to meet with one of the dissidents who 
was in town this week who has been arrested and has had some 
serious issues. He is a pretty brave person. And there is some 
reason, I guess, for some optimism that maybe there is going to 
be some change. But we have not seen it demonstrated yet as far 
as the safety of the activists in the country.
    Can you just give me your assessment as to how the United 
States can play a constructive role in Ethiopia?
    Ambassador Nagy: Thank you very much, Senator.
    I am extremely optimistic about Ethiopia. I have seen 
Ethiopia at its worst during my first tour there during the 
awful Marxist dictatorship. Then I saw it somewhat better when 
I was Ambassador looking at Ethiopia in an evolutionary manner. 
The new prime minister I am very encouraged by. In my view, he 
may be the first generation that will actually be willing to 
allow itself to be voted out of office, which I think is a huge 
step going forward. I have also been very encouraged by recent 
steps that he has taken, most especially just in the last 
couple of days, the agreement to implement the peace treaty 
with Eritrea, which is going to be quite difficult given 
internal Ethiopian pressures. So overall, Ethiopia had major 
human rights problems in the past. I am encouraged that each 
year it will get better and better, and if confirmed, I will 
certainly engage very strongly with Ethiopia, given my own 
history with that country, to make sure it goes forward.
    Senator Cardin. I just hope that we will be pretty tough on 
this. We have seen other countries like Burma where we thought 
they were on a path. They made an abrupt change in direction. 
The safety issues in Ethiopia are real. So I would hope that 
you would continue to do that.
    Mr. Schenker, we had a chance to talk about this. I know 
Senator Shaheen raised the port issues in regards to Yemen. 
Yemen has a major humanitarian crisis now, and it is 
complicated as to how we can get help to the people. There are 
clearly outside forces trying to prevent that from happening, 
but we do not have the sensitivity that we believe is necessary 
from the Saudis or UAE. Obviously, they have security concerns. 
We understand that. There are outside forces causing a lot of 
these problems.
    How much more aggressive can we be to make sure the people 
of Yemen get the help they need?
    Mr. Schenker. Thanks, Senator.
    I think more can be done certainly. We have UNVIM in there, 
the U.N. verification and inspection team, which has I think 
provided some bit of assurance to the Saudis and the UAE that 
contraband weapons are not arriving for the Houthis in these 
ports. It perhaps can be that we can pressure parties there to 
bring in cargo planes into Sana'a directly. That may ameliorate 
some of the situation. But it is a very I think complex and 
difficult situation. Hodeidah itself, even if Hodeidah shut 
down, they have Saleef, which is north of there. But the road 
from Saleef goes through Hodeidah to go east. So I think more 
can be done and pressured on our allies. They have made 
commitments to meet the standard to Martin Griffiths of 
humanitarian goods getting into the country.
    Senator Cardin. I think you can play a really critical role 
here because there is a lot of activity by UAE and the Kingdom 
here in Washington, and there is a lot of engagement. I think 
it is important that they get a very clear message as to the 
importance of being as strong as possible in regards to 
humanitarian aid. So I appreciate your statements on that.
    Mr. Schenker. Thank you, Senator.
    Senator Cardin. Admiral Harris, I want to talk a little bit 
about North Korea. I was going to let you go without that.
    Most of the experts that we have had before this 
committee--we have had outside experts that were in the 
administration. We have not had yet the administration's people 
here--have said that the very first thing you need to do, if 
there is going to be any confidence that North Korea is going 
to give up their nuclear weapons, you have to have a 
declaration. You got to know what is going on in North Korea. 
You got to know the venues. You got to know the activities. You 
got to have inspectors in to verify what the starting point is. 
And then you need not just a statement that you are going to 
end the nuclear program, but you need a game plan which is 
realistic for the dismantling of their nuclear program from 
beginning to end, including the delivery systems. That is what 
the experts that have testified before this committee said is 
the first step--the first step, not the final step, but the 
first step--in achieving our objectives. We have not heard 
anything about that from the Singapore summit.
    But do you agree with that assessment that if we are going 
to be able to have success, we need to know where we are 
starting from?
    Mr. Harris. Sure, Senator. But I believe that the first 
step has to be the meeting. Right? And so we had that meeting.
    Senator Cardin. But we have had meetings before, I mean, 
not directly.
    Mr. Harris. Right, but not meetings at this level, not 
meetings with the President.
    Senator Cardin. That is correct. But we have had high-level 
meetings in the past and commitments in the past, and we never 
really have had our eyes on exactly what they have and an 
understanding on how you dismantle that.
    Mr. Harris. And I agree with you completely in the way you 
formulated that.
    I think that after the meeting, the President said that the 
summit in Singapore was not designed to solve all issues all at 
once, but to be a starting point for serious negotiations. And 
that is the next step are those serious negotiations to 
establish the modalities for what a complete, verifiable, and 
irreversible denuclearization means and how we are going to go 
about doing that. But that is the work of the negotiating teams 
and the experts in denuclearization, of which we have many in 
the United States, scientific experts that have done this in 
the past in other places. We need to rely on them to help us 
get to that point where we can be satisfied that North Korea 
has denuclearized.
    I know the IAEA, the International Atomic Energy Agency, 
has also come up and said they are ready to help, should they 
come to that.
    Senator Cardin. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Menendez, for holding this important hearing.
    And to our three distinguished witnesses and your families, 
we are blessed to have men of your experience and strength and 
character willing to continue serving our country, and I am 
grateful for the opportunities I have had to meet with you 
before. Admiral Harris and Ambassador Nagy, thank you so much 
for our conversation yesterday--Mr. Schenker. And I look 
forward to supporting your nominations.
    If confirmed, which I expect you to be, you will confront 
some of the greatest challenges the United States faces around 
the world from North Korea, the Indo-Pacific, and strengthening 
and sustaining our vital partnership with our ally, South 
Korea, to embracing the opportunity of the continent of Africa 
while also confronting terrorism and humanitarian crises to the 
very real challenges and risks of Iran, Syria, and the Middle 
East. You have a full plate.
    The Trump administration has given high priority to 
addressing strategic competition with China in Africa. Senator 
Corker and I have worked hard on a bipartisan bill called the 
BUILD Act that will create a new development finance 
institution, which we hope will be marked up here next week. If 
realized, this new DFI would shape U.S. efforts to 
counterbalance China's growing economic influence on the 
continent. And I am encouraged the White House has expressed 
strong support for it.
    Ambassador Nagy, if the bill then passes into law, how 
could you use this new tool to promote international 
development and advance U.S. foreign policy interests in 
Africa?
    Ambassador Nagy: Thank you very much, Senator.
    If it passes into law, it would be in my view a tremendous 
asset for us to use especially regarding when you mentioned 
China because in talking about China's activities in Africa, we 
can make the list of all the negative impacts. But the big so-
what question there is, so what do we displace it with? How do 
we replace it? How do we get more American businesses involved 
in getting into Africa? I know the large businesses have no 
problems--the multinationals. But when I was in west Texas, so 
many companies came to me and said we are interested in 
investing in Africa, the dairies, the soybeans, and the others. 
How can we do it? We are afraid to do that because it is not a 
level playing field. If we get into a dispute, we are going to 
lose. That type of an act would be absolutely perfect to 
complement the other side of warning African Governments about 
China's activities and extraction and indebtedness and all the 
other things.
    Senator Coons. Thank you, Ambassador. It is my hope that we 
will deliver that tool to you and to other folks who represent 
us around the world in partnership with USAID to advance 
development and security.
    Let me move to a country where we have an opportunity to 
advance democracy in a very real way and where they are 
watching very closely what is said and done here, Zimbabwe. I 
recently had a chance to lead a bipartisan CODEL. Senator Flake 
and Senator Booker were also with me where we visited with 
South Africa and Zimbabwe, both of which have relatively new 
presidents. And as you know, on July 30, there will be an 
election in Zimbabwe. Prospects for democracy there are 
uncertain. In our lengthy one-on-one meeting with President 
Mnangagwa, he said all the right things, and he has publicly 
continued to say and do good things. But there are significant 
unaddressed barriers to their restoration of full participation 
in the community of nations.
    Senator Flake and I introduced an amendment to ZDERA, the 
Zimbabwe Democracy and Recovery Act. Do you agree the United 
States should not relieve sanctions on Zimbabwe until the 
Government takes concrete actions to demonstrate its respect 
for human rights, its commitment to free and fair elections, 
and to pursuing genuine anti-corruption measures and a rules-
based economy?
    Ambassador Nagy: Absolutely, Senator. Actions speak so much 
louder than words, and we just have to wait to see what happens 
there.
    Senator Coons. One of the core actions we could take would 
be to send an American Ambassador. In your own experience, you 
were once recalled from retirement to serve as our Ambassador 
in Nigeria. We have a nominee now from the administration who 
we might be able to get through this committee and the floor in 
a month, thus would arrive in Harare a week before a 
generationally significant election. Would you recommend that 
the Department look for a seasoned, experienced former 
ambassador to send, as well as moving forward as fast as we can 
to confirm a new ambassadorial nominee?
    Ambassador Nagy: Senator, if confirmed, once I can look at 
all the details and the information, I promise you if I believe 
that that would be a solution, I will move as quickly as 
possible for that because in my own case, it really did help to 
spend some time there in Nigeria.
    Senator Coons. Having someone with the length of service 
and range of experiences and relationships you have is going to 
be a terrific opportunity for us. But I am concerned about the 
press of time in a country that has a once-in-a-generation 
chance to get this right.
    Admiral Harris, if I might, I just wanted to both commend 
you for your long service and your wife's long service in the 
United States Navy and to welcome you and to thank you for your 
willingness to take on this job.
    Will you ensure that talks with North Korea do not 
destabilize the Korean Peninsula at the expense of expanding 
Chinese influence? My concern is that there is a very real 
prospect here of our making the strategic mistake of canceling 
exercises, withdrawing American troops without having a clear 
and verifiable and irreversible path towards denuclearization.
    And I will just echo something Senator Portman asked you 
previously. I just met with North Korean human rights activists 
and folks that defected recently over many years. Should the 
Government of South Korea, with our partnership, be playing a 
role in advocating for human rights in North Korea as well, and 
should that be a central part of our advocacy with regard to 
North Korea?
    Mr. Harris. Thanks, Senator.
    If confirmed, I will do all of those things that you said. 
And with regard to human rights, I believe that the Government 
of the Republic of Korea, South Korea, has a big role to play 
in the issue of human rights and the gross violations by the 
North. Also, there are the issues of abductions of Japanese 
citizens, and the President raised those issues in his 
discussions. So I think that is a positive as well.
    Senator Coons. Let me close by saying to Mr. Schenker, if I 
might, a number of us on a bipartisan basis sent a letter to 
the President urging that he not precipitously withdraw U.S. 
forces from Syria out of a concern that the vacuum created, if 
we were to withdraw, would both significantly put at risk or 
greatly harm our allies who worked with us, our partners in 
combat against ISIS, and that that vacuum would simply be 
filled by Iranian proxies.
    Is it your view that our departure from the ground in Syria 
would create a significant vacuum and we would be at risk of 
having Iranian proxies simply fill that vacuum?
    Mr. Schenker. Senator, thank you.
    I am concerned about withdrawing precipitously. I think we 
have to make the decision based on conditions on the ground and 
in conjunction with what the combatant commanders say is 
appropriate.
    Senator Coons. Thank you.
    I appreciate your previous comment as well that the White 
Helmets do terrific work. I was concerned by the hold on funds 
to them and hope that you will also be able to make progress in 
releasing those vital humanitarian funds that support a number 
of different NGOs and vital work in Syria.
    Thank you all for your testimony and your willingness to 
serve, and I look forward to working with you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Rubio? And I am going to go vote, and then we will 
have Senator Kaine who will follow you. Thank you.
    Senator Rubio. It is perfect. I can go as long as I want 
now. [Laughter.]
    Senator Rubio. But thank you all for being here. Thank you 
for your willingness to serve.
    I wanted to begin with you, Admiral Harris--you have a deep 
amount of experience in that Indo-Pacific region--and just ask 
kind of a very basic question. You may have already been asked 
this. But just on your experience from the region, you would 
agree that perhaps the leading--if not the leading, one of the 
leading--reasons why what we saw earlier this week was the 
impossible, Kim Jong-un looking for a meeting and so forth, is 
because he had serious doubts about whether they could attach a 
warhead to a missile before the economy collapsed. They were in 
a race between being able to prove that capability and economic 
collapse that threatened the regime. And they had significant 
doubts and perhaps were convinced that the collapse would come 
before attaching it, and they needed to kind of try to stop 
that from occurring.
    Mr. Harris. Thanks, Senator.
    I am not sure what is going on in Kim Jong-un's mind, but I 
do believe that it is the maximum pressure campaign plan that 
was led by the State Department and the enforcement of U.N. 
sanctions, pretty harsh sanctions by many countries, including 
China. I think the force of those sanctions and the maximum 
pressure campaign is what brought Kim Jong-un to the 
negotiating table in Singapore.
    Senator Rubio. Right. And I only raise that because in the 
context of all the other stuff that is going on, how many flags 
they had and all those other things, these are all certainly 
relevant to some extent, but ultimately at the core the single 
most important thing that got him to the table and will keep 
him at the table is these sanctions, this pressure. And as long 
as that pressure is there, that is the one thing they 
desperately need to figure out.
    Mr. Harris. I agree with you. I am concerned that China is 
starting to relax the sanctions, and they want further 
relaxation of sanctions by other parties. I think it is 
important that we maintain those sanctions until we can come to 
the point where we believe that Kim Jong-un is serious about 
the negotiations and the ultimate aim of the talks, which is to 
have that complete, verifiable, and irreversible 
denuclearization.
    Senator Rubio. Well, if confirmed--and I believe you will 
be--I think one of the fundamental tasks that you will play 
will be a very critical one because one of the biggest dangers 
in all of this is going to be an attempt on the part of the 
Chinese and the North Koreans to split the United States and 
South Korea. As we know, there is an inflated public 
expectation in South Korea about what this deal could mean.
    And here is my concern. My concern is we reach a point that 
they are able to drag this thing out into extended and 
protracted talks, that at some point there are offers being 
made that South Korea is saying these ideas are fine by us, but 
they are not good for the United States, and that that split 
between the U.S. and South Korea would undermine the 
international sanctions. The international community, the U.N. 
would say, well, if South Korea is okay with this, North Korea 
is okay with this, and China is okay with this, then the United 
States is being unreasonable and that that could undermine the 
international sanctions. So I think that is going to be an 
enormous part of your responsibility, is to prevent that split 
from happening.
    In particular, I am concerned about a push that would say 
something like, well, we are going to have a deal but in order 
for us to do some concession short of denuclearization, we want 
it to be step by step. We do something; you do something. And 
in that sort of negotiation step by step, two of those steps 
along the way towards a final deal would be, number one, we 
want you to have a significant reduction in troops, and the 
other is we want you to remove the missile defense system from 
South Korea. And each of those steps would be met by some 
reciprocal concession short of denuclearization. But it would 
show progress. And the South Korean Government, given this 
expectation, could come forward and say, well, we are in 
agreement with that. And then the world would say to the United 
States, well, they are all in agreement with it. You guys are 
being unreasonable by not agreeing with it.
    So I think there is a real danger of a protracted process 
here where they are able to gain very valuable concessions, 
some of which directly benefit. The THAAD presence in South 
Korea--its removal would deeply benefit China and, frankly, 
even Russia, but would be against our national interests. But 
it might be something that the South Koreans would look 
favorably on in a step-by-step process, and we are now cast in 
the role of the bad guys who are standing in the way of a deal 
yet to be consummated.
    So I just truly believe that one of the most important 
functions you will play will be to ensure that that split never 
happens, that we do not allow, as part of this negotiation, 
that they create a gap between us and South Korea as part of a 
negotiating tactic. And I believe that part of the challenges 
you will face is an incredible amount of expectation within 
South Korea and the amount of political capital that the 
President of South Korea has put on this deal being successful.
    And I was curious whether you share that view as a risk and 
what your views would be about ensuring that that split does 
not happen.
    Mr. Harris. Thanks, Senator.
    I do believe that it is important that we stay synchronized 
and aligned with our ally in South Korea and that the decisions 
that we make regarding troop levels or the terminal high 
altitude air defense system and any other thing that could come 
out of the negotiations, that those decisions that we make, 
that we undertake are alliance decisions, are decisions that 
are made with our South Korean ally and not unilaterally. And 
they need to make their decisions based on the alliance as 
well. Just like the decision to put the THAAD into South Korea 
was an alliance decision, I believe that is important. And I 
think that that is one of the roles that I will have, as you 
said, if confirmed, is to stay synchronized and aligned with 
leaders in South Korea.
    Senator Rubio. Can I ask with your background there 
obviously in that command--the existence of a missile defense 
system in South Korea, separate even if North Korea did not 
have long-range missiles and nuclear capability, would it still 
be in the national security interest of the United States to 
have a missile defense presence in South Korea and in the Indo-
Pacific region beyond the North Korea threat?
    Mr. Harris. Senator, based on my previous job, we put the 
THAAD ballistic missile defense system in South Korea with 
South Korea and that alliance decision because of the threat 
from North Korea. It is not there for anything from China or 
Russia or anywhere else. It is based solely on the ballistic 
missile threat from North Korea.
    Senator Rubio. So there would be no justification for it if 
there were no North Korean----
    Mr. Harris. I do not think there would be a justification. 
It is not the issue. I think there would be no need for it. 
That is a very tactical system designed for ballistic missiles 
coming from North Korea.
    Senator Rubio. Towards the mainland of the United States.
    Mr. Harris. No, no. The THAAD is there for ballistic 
missiles coming to South Korea. It is there for the defense of 
the Americans in South Korea, our South Korean allies and the 
people there.
    Senator Rubio. Okay.
    Senator Kaine?
    Senator Kaine. Thank you to my colleagues.
    And thank you and congratulations to the nominees. I think 
this is a very, very impressive panel of nominees.
    I want to say, Admiral Harris, my worry as a member of the 
Armed Services committee when you last appeared before us to 
complete your time at PACOM was that I would never have an 
opportunity again to torment you across the witness table. I am 
glad to see that those opportunities are not coming to an end.
    To Ambassador Nagy, I have to say of any resume I have ever 
seen of anybody, I am giving you the best resume. Born in 
Hungary and a member of the Communist Youth Pioneers as a 
youngster until your father got a death sentence and you guys 
left the country. You have been involved in three political 
campaigns for President: Barry Goldwater, Mitt Romney, and 
Barack Obama. That is an unusual hat trick. There are not a lot 
who would say that. And some others. And your tremendous 
service in Africa, your multiple language fluencies. You are 
the most interesting man in the world. [Laughter.]
    Senator Kaine. But I will tell you the thing about the 
resume I liked the best--those of you out in the audience did 
not have a chance to read this. Listen to this sentence. He 
failed the Foreign Service exam the first time he took it but 
passed in 1977. Who puts that in their resume? A very confident 
person who is attributing success to the most important 
element, which is persistence. Look at the career, being an 
Ambassador twice and now being nominated, and you put that 
front and center. That is very, very much to your credit.
    My questions are going to be for Mr. Schenker. Thank you 
for the opportunity to visit in the office and your work. I am 
the ranking member on the SFRC subcommittee that kind of 
coincides with your area of responsibility.
    In your professional expertise--I am not asking about 
administration policy. I am talking about your professional 
expertise working in this area. Do you think a peace deal 
between Israel and Palestine, two states for two people living 
in peace, is still a possibility, or have facts, you know, 
violence from Gaza against Israel or Israeli settlements into 
the West Bank--have facts eclipsed the possibility of a two-
state peace deal?
    Mr. Schenker. Thank you, Senator. It was a pleasure meeting 
with you as well.
    No, I think it is still a possibility, but I think it 
depends on the wills of the party. Ultimately any solution to 
the Israeli-Palestinian conflict is going to be determined by 
the parties. The United States has a role in facilitating those 
negotiations, but both parties have to be ready to make the 
sacrifices necessary.
    Senator Kaine. Let me ask you this. Do you think it should 
still be U.S. policy now to promote, under the right 
circumstances--as you point out, it is the will of the 
parties--but to promote that as the ideal, which has been U.S. 
policy since the U.N. first recognized the state of Israel? Do 
you think that should be our policy?
    Mr. Schenker. I do.
    Senator Kaine. What do you think Israel must do to make 
that possibility a reality in your professional opinion, not 
the State Department?
    Mr. Schenker. Senator, I do not want to prejudge the 
negotiations. I have not been privy at all to any of the 
internal administration deliberations, what Jared Kushner and 
Jason Greenblatt----
    Senator Kaine. I am not really asking you about the 
administration. You are an expert in this field. You lived 
there. You studied there. You are fluent in the languages. You 
have worked in think tank organizations who have worked on this 
for years. So what I hope to do in my remaining 3 and a half 
minutes is just get your professional expertise based on a life 
of work in the area, what you think Israel must do, what you 
think the Palestinians must do, what you think the United 
States should do, what Europe Israel's neighbors should do. So, 
again, I am not talking about the negotiation but just in your 
expertise in the area, I would hope you could educate us.
    Mr. Schenker. Well, thank you.
    I think the broad outlines are land for peace. There is a 
West Bank for the parties to determine the lines. There is Gaza 
for the parties to determine the lines. Territorial swaps, a 
recognition----
    Senator Kaine. That is on the Palestinian side.
    Mr. Schenker. Right.
    There are difficult decisions that are going to have to be 
made potentially between the parties about where the capital 
ultimately may be of the Palestinian state.
    For the Palestinians, once again, it is recognition of 
Israel's right to exist as a Jewish state. I think that is what 
the Israelis are demanding right now.
    Senator Kaine. And that was the terms of the original U.N. 
decision.
    Mr. Schenker. And for Israel to live within safe and secure 
borders, and that is for the parties to determine, of course, 
but whether this future Palestinian state is largely 
demilitarized.
    So I think those are sort of some of the key issues on that 
front. And I think those are surmountable.
    Senator Kaine. If each side is willing to do the things 
that you outlined.
    Mr. Schenker. Correct.
    Senator Kaine. And both Israel and Palestinians have some 
things that they have to do if this desirable reality will be 
accomplished.
    I am not going to ask you what the U.S. should do because 
you are right. The State Department and Jared Kushner and 
others are working that.
    What about the neighbors of Israel and Palestinians? What 
do you think they need to do to help make the desirable outcome 
a reality?
    Mr. Schenker. Thank you. I think this is the key element 
here, which is that for Israel presumably to make some very 
difficult decisions, in return there would be recognition from 
across the region and other parties to follow. And that is 
acceptance and opening ties with Gulf States. That may be 
ongoing now, but are I think very quiet.
    Senator Kaine. Sort of sub rosa. We would want them to be 
publicly supporting both any peace deal, but also opening up 
true nation-to-nation relations in the sunlight with Israel.
    Mr. Schenker. Right. That would be the hope, obviously.
    Likewise, I think some funding support for the Palestinians 
to help them develop their economy in a very big way, which 
will be I think important to both stabilize and strengthen and 
counter violent extremism in these areas.
    Senator Kaine. Well, I hope that we remain very committed 
to this. I despaired from my first visit in Israel in 2000 till 
my most recent visits. It seems like the prospect have gotten 
farther and farther apart. But I always describe having 
ancestors from a part of the world where the prospects looked 
zero for hundreds of years in Ireland, and then in our 
lifetime, after the Good Friday Accords, there was an accord 
and there are generations of kids born in Ireland today who do 
not even know what it was like that there were centuries of 
troubles.
    So we need to remain committed to it and watch for those 
opportunities. And I appreciate your long work in this area and 
encourage you to keep that in the front of your mind in your 
capacity, should you be confirmed.
    Thanks, all of you, and thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Markey for a full 7 minutes.
    Senator Markey. Thank you.
    We hoped that our agreement is matched by President Trump's 
negotiating skill with President Kim. Thank you.
    And by the way, Senator Kaine, I agree with you. That is an 
incredible resume for the most interesting man in the world. It 
is amazing.
    But I was talking to Admiral Harris yesterday.
    Senator Menendez. You are going to sink his nomination if 
you keep saying he is the most interesting man in the world. 
The President is the most interesting man in the world. 
[Laughter.]
    Senator Markey. This is true. This is true.
    But Admiral Harris--his father in the Navy meets his mother 
in Japan. After World War II, they get married, move to 
Tennessee and then to Florida. And he returns as the head of 
our Pacific Command.
    The Chairman. Those are both States with no income tax. He 
is very smart. [Laughter.]
    Senator Markey. And then to be here as our Ambassador to 
Korea, just absolutely amazing. Each of these stories is just 
an American dream come true in each instance. And we thank you 
for embodying all of that.
    And by the way, I support wholeheartedly each one of your 
nominations for confirmation. We thank each of you for your 
service.
    I would like, if I could with you, Admiral Harris, to just 
move over to the sanctions regime, which is in place, and kind 
of some of the commentary coming out of China. There might be 
an interest in relaxation of that sanctions regime before we 
see full compliance by President Kim in the denuclearization of 
North Korea.
    Could you talk about that, your philosophy in terms of what 
the sequencing should be in the removal of any of those 
sanctions?
    Mr. Harris. Sure, Senator. As I understand it, sanctions 
remain in effect. Full sanctions remain in effect until North 
Korea makes concrete steps, demonstrates concrete steps toward 
denuclearization. The full range of United Nations sanctions is 
what I am talking about, and I believe that it is those 
sanctions that brought North Korea to Singapore in the first 
place, that brought Kim Jong-un to Singapore. So I think that 
we need to maintain those sanctions until there are some 
concrete demonstrations of moving toward a denuclearized North 
Korea.
    Senator Markey. Are you concerned that China kind of 
unilaterally might just begin to turn a blind eye to an 
increase in trade that will help to bolster the regime?
    Mr. Harris. I am concerned. China is a member of the United 
Nations, and the United Nations has determined that North Korea 
should be sanctioned because of their nuclear weapons 
development program. And the United Nations has not relaxed 
those sanctions. So China as a member of the United Nations in 
my opinion is obliged to follow those rules.
    Senator Markey. I was there in Korea last August with 
Senator Van Hollen and Senator Merkley while military maneuvers 
were being conducted in South Korea. Could you talk a little 
bit about the relationship with South Korea, the concern which 
they voiced on day one that they had not been notified of the 
change in terms of those military exercises, and what you think 
is necessary going forward in terms of maintaining a close 
working partnership with South Korea?
    Mr. Harris. Sir, I believe that President Moon Jae-in said 
it right after the talks in Singapore. He described them as 
talks of the century. I think that he is optimistic and wants 
to create that negotiation space so that North Korea has an 
opportunity to demonstrate the seriousness by which it is 
willing to undergo denuclearization.
    So I think the first step we have to do is create that 
space, that negotiating space, and then go forward from there.
    Senator Markey. Is your definition of denuclearization the 
complete removal of all nuclear equipment before there is any 
relaxation of trade sanctions?
    Mr. Harris. Not necessarily to the extent that you just 
described. I believe that denuclearization means complete 
denuclearization of equipment, research, existing stockpiles, 
and all of that, including the means to deliver them. I think 
that is what denuclearization means.
    I do not know, quite frankly, where along that timeline 
toward complete denuclearization that we should start to relax 
sanctions. I think that is part of the negotiations, and that 
is certainly part of the deliberations that will happen back 
here in Washington and in Seoul with South Korea.
    Senator Markey. So how concerned are you that this Kim is 
still working from the Kim family playbook which in the 1990s 
and now in the 21st century just continues to result in them 
pocketing the rewards of negotiation while delaying the 
concessions and then accepting those rewards as now a fait 
accompli without ever having seen any benefits to flow to the 
United States, South Korea, or the West?
    Mr. Harris. Yes, sir. Well, we saw with his predecessors 
this happen in 1994, in 2005, and 2012. But I believe that the 
President is spot on when he says that he is not going to wait 
that long. He will know within a year, maybe less and we will 
know within a year or maybe less the seriousness by which Kim 
Jong-un approaches his part of the deal and we will be able to 
make that decision then.
    Senator Markey. Thank you. We thank you, Admiral. We thank 
each of you for your service to our country, and we look 
forward to trying to help you do your jobs in the years ahead. 
Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador Nagy, let me just ask you. Do you view defense, 
diplomacy, and development, the three D's, as all critically 
important to our work in Africa?
    Ambassador Nagy: Absolutely, Senator. If you get rid of the 
terrorists, you have to fill the space with something. And if 
after you get rid of the terrorists, the same conditions remain 
there with poor governance, abuse of human rights, a couple of 
years later, another terrorist group will come, as we saw in 
Somalia over the last several decades. So absolutely yes, 
Senator.
    Senator Menendez. Do you think we have the balance right as 
of this moment?
    Ambassador Nagy: Senator, I can promise you that if I am 
confirmed, I will be as aggressive as I can be in trying to 
obtain the resources that I believe are necessary. Of course, 
at the end of the day, I will support whatever budget the 
President puts out. But in my career, I have had to deal with 
lean budgets. I have had to deal with better budgets, and I 
promise you that I will optimize the resources the best way I 
can.
    Senator Menendez. My goal is not to have you dispute the 
administration's budget. Nobody could defend that. But the 
question is will you be an advocate if you are ultimately 
approved, confirmed of creating the right balance among these 
three critical elements?
    Ambassador Nagy: Absolutely, Senator.
    Senator Menendez. Let me ask you. What is the effect of 
having such a significant military footprint in a country like 
Niger but no aid mission?
    Ambassador Nagy: Senator, I do know that Niger has 
resources from USAID. They do have a limited mission there, not 
a formal mission, and they are also supported from other 
regional offices. It is one of those cases where Niger is 
threatened from several different directions. I think it is 
probably one of the most vulnerable countries in the Sahel. The 
question will be rightly when the terrorists are gone, what 
happens next. And I can promise you that, if confirmed, I will 
do my best to fight for those resources to replace the vacuum 
that is left behind.
    Senator Menendez. Let me ask you this. Given the concerns 
that some have voiced about radicalization occurring due to 
abuses by security forces, how should we be weighing in whether 
and when to sell arms to countries in Africa whose militaries 
have engaged in well documented human rights abuses even in the 
face of significant terrorist threats?
    Ambassador Nagy: Senator, abuse by security forces is a 
significant problem. In my experience in Africa, I have seen 
the positive role that U.S. military exchanges can play in 
actually improving the security forces from systematic abuses 
to a point where it is only rogue elements or rogue 
individuals. So based on my own experience, Senator, I am very, 
very much in favor of as full an engagement as possible.
    Senator Menendez. Because of the mil-to-mil relationship 
you are talking about.
    Ambassador Nagy: Absolutely.
    Senator Menendez. I am talking about selling arms.
    Ambassador Nagy: On those, Senator, I totally support U.S. 
law, and I promise you that, if confirmed, I will examine very 
closely the human rights situations in each of those cases.
    Senator Menendez. But as you know, the committee, the 
chairman and I, have jurisdiction over arms sales in an 
informal way. And I would be interested in having an 
understanding of what is the right calibration here, so your 
insights would be helpful.
    Just finally, what is your position on the utility of 
investments in the democracy and governance sector as it 
relates to the African continent?
    Ambassador Nagy: Thank you very much for that question.
    In my view governance and democracy is the glue that holds 
all other programs together because without governance and 
democracy--for example, we can have a phenomenal Power Africa 
program but if the citizens in the country after the power is 
there do not believe in their government or do not believe that 
people are paying for their bills, the infrastructure will be 
destructed. So from my experience, I am totally committed to 
governance and human rights and democracy projects.
    Senator Menendez. As a follow-on--and I am thrilled to hear 
your answer. As a follow-on to that, I hope you will be, within 
the confines of the State Department and the administration, an 
advocate for funding in that regard because we are sorely 
lacking in this.
    Lastly, I would like commitments from you that, if 
confirmed, you will return in a relatively brief time to brief 
us on the status of the development of a coordinated diplomatic 
approach to both the Horn and the Sahel Mahgreb part of the 
continent.
    Ambassador Nagy: You have that, Senator.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I want to thank all three of you for your willingness to 
serve. I can tell you in recent times we have not had a 
committee hearing like this where all of the nominees are so 
broadly supported on both sides of the aisle. And I think it 
speaks to who you are as people but also your professionalism. 
So we thank you for that. We thank your families for joining 
you in your service.
    We are going to keep the record open until the close of 
business tomorrow. So there will be some written questions. I 
know all three of you are very familiar with this. If you could 
respond to those fairly quickly, it will help speed along your 
nomination.
    Senator Menendez. One very brief comment, Mr. Schenker. You 
suggested that your children are not angels. They have behaved 
extraordinarily well. [Laughter.]
    Senator Menendez. I do not think there are adults who could 
behave as well in the audience. [Applause.]
    The Chairman. Do you want to respond to that? [Laughter.]
    Mr. Schenker. No comment. [Laughter.]
    The Chairman. Thank you so much.
    And with that, the meeting is adjourned.


    [Whereupon, at 11:55 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
            Harry B. Harris, Jr. by Senator Robert Menendez

State of U.S.-ROK Relations
    Question 1. Despite our shared interests and values with Korea, 
your nomination comes at a time when there are serious questions about 
U.S. commitment to Korea and the broader Asia-Pacific region under the 
Trump administration. We have not had an Ambassador to Korea since 
January 2017, approval of U.S. leadership by Koreans is ebbing, and 
although President Trump and President Moon have managed to find firm 
footing on how to deal with North Korea, the relationship has also been 
strained by disagreements over trade and alliance burden-sharing, among 
other issues.

   How do you plan to build our relationship with this important ally 
        and restore our image in the region?

    Answer. As former PACOM Commander, I understand U.S.-Republic of 
Korea alliance is ironclad. The strength of the relationship is 
significant not just in a bilateral context but for the entire Indo-
Pacific region. With this in mind, I will endeavor to deepen our 
partnership with the Republic of Korea, by focusing on communication 
and engagement with both the Government of the Republic of Korea and 
with the Korean people.
    President Trump and President Moon have committed to foster 
expanded and balanced trade while creating reciprocal benefits and fair 
treatment between the two countries. I plan on building upon this and 
making our economic relationship a priority.
    In sum, if confirmed, I will ensure that all concerns about the 
alliance are put to rest and expend all my efforts towards conveying 
President Trump's and the administration's continued commitment to this 
historic alliance.

    Question 2. What measures do you intend to take to seek to undo the 
damage of our ambassadorship being empty for such an extended period--
at such a crucial time?

    Answer. The State Department has a roster of capable and 
experienced diplomats working on Korea policy, including at our U.S. 
Embassy in Seoul. I am very confident in the abilities of the dedicated 
officers from the 15 departments and agencies that make up Mission 
Korea. Our Charge d'Affaires in Seoul is also a seasoned diplomat and 
Korea expert.
    I believe that ambassadors should be seen and heard. To that end, 
if confirmed, I intend to pursue a robust public diplomacy focused on 
reassuring the Korean people of America's resolve and commitment to the 
Alliance. Equally important is private diplomacy to reassure the Korean 
leadership of America's resolve.

    Question 3. What is your assessment of where we stand today with 
containing the threat of a nuclearized North Korea?

    Answer. The President achieved his objectives at the Singapore 
Summit. He secured a DPRK commitment to complete denuclearization of 
the Korean Peninsula and built a good working relationship with 
Chairman Kim. This is the beginning of the process to completely, 
verifiably, and irreversibly denuclearize North Korea.
    Our alliances remain ironclad, and ensure peace and stability in 
the region.
    The security of South Korea and Japan are America's security, and 
the United States will continue to meet all of its alliance 
commitments.

    Question 4. How would you use your future role as U.S. Ambassador 
to the Republic of Korea to advance our objective to denuclearize North 
Korea?

    Answer. Following the June 12 U.S.-DPRK summit in Singapore, there 
is a great deal of work ahead to ensure the DPRK's commitment to 
denuclearize is fulfilled. If confirmed, I will work closely with our 
ROK allies to ensure that we remain in lockstep in our approach toward 
the DPRK. I will also ensure that U.S. Embassy Seoul provides Secretary 
Pompeo all necessary expertise and support to ensure that follow-on 
negotiations to implement the outcomes of the U.S.-DPRK summit are a 
success.

    Question 5. As former PACOM Commander, what is your sense of how 
realistic U.S. military options were--or might yet need to be--on the 
Korean Peninsula? Do we have real military options that don't spill 
into a very costly general war in the region?

    Answer. The fact that President Trump and Chairman Kim met in 
Singapore shows that the two sides are very serious about finding a 
diplomatic solution. These efforts give us hope that we can find real 
success where past efforts have fallen short. As the former PACOM 
commander, I am confident in our military options which are both real 
and comprehensive. These options cover the entire spectrum of violence.

    Question 6. What is your view of the current pace and trajectory of 
North-South dialogue and the Panmunjon (pan-moon-john) Declaration?

    Answer. The United States congratulates the Republic of Korea and 
the Democratic People's Republic of Korea on their historic meeting and 
the Korean people's aspirations for peace and prosperity.
    The United States is encouraged by President Moon Jae-in and 
Chairman Kim Jong Un's stated goal of complete denuclearization in the 
Panmunjom Declaration. It is important the DPRK match its words with 
actions. After all, no one has more stake in the outcomes of the North-
South dialogue and Singapore summit than our treaty ally, the Republic 
of Korea.

    Question 7. Do you have any concerns about how we keep the 
denuclearization process and the North-South diplomatic process linked 
together?

    Answer. Of course I do. But I'm encouraged by President Moon's 
statement that, ``the improvement of relations between North and South 
Korea cannot advance separately from resolving North Korea's nuclear 
program.'' This is the hard work of diplomats and negotiators. If 
confirmed, I look forward to beginning this hard work.

    Question 8. What steps would you recommend to make sure Pyongyang 
does not drive a wedge between Washington and Seoul?

    Answer. I understand we remain in constant and close contact with 
the Republic of Korea about our unified response to North Korea. If 
confirmed, there will be no change in this posture as I will make 
communication and engagement with the Government of the Republic of 
Korea my top priority.
North Korea-U.S. Forces
    Question 9. Some analysts have suggested that as the price for any 
deal North Korea might demand that U.S. forces on the Korean Peninsula 
leave. President Trump himself has suggested he would like to withdraw 
U.S. forces from South Korea.

   What is your assessment of how such a retreat of U.S. forces would 
        affect U.S. security interests and posture on the Korean 
        Peninsulas? In Asia? In the Indo-Pacific?

    Answer. While it is difficult to engage in a hypothetical question, 
as I stated in my testimony, any decision regarding a change in the 
force posture of United States Forces Korea (USFK) should be an 
alliance decision between the United States and the Republic of Korea.

    Question 10. What steps will you take under the Korea-US trade 
agreement to assure that South Korea open its legal services market and 
further remove regulations that hinder foreign investment?

    Answer. President Trump and President Moon have committed to foster 
expanded and balanced trade while creating reciprocal benefits and fair 
treatment between the two countries. If confirmed, I will build on the 
President's 2017 visit to Seoul when 42 ROK companies announced their 
intent to implement 64 projects in the United States valued at $17.3 
billion over the next four years. Twenty-four ROK companies announced 
planned purchases of U.S. goods and services valued at $57.5 billion, 
to include $22.8 billion in energy purchases. I'm also encouraged by 
last March's negotiations where U.S. Trade Representative Lightizer and 
ROK Minister for Trade Kim Hyun-chong announced that both countries had 
reached an agreement in principle on KORUS amendments and modifications 
to address investment disputes, tariffs, trade in automobiles, and 
customs procedures. Both countries are actively engaged in discussions 
to prevent competitive currency devaluation and exchange rate 
manipulation. These are good steps to ensure that the totality of trade 
between our countries, including goods and services, is free, fair, and 
market-based. If confirmed, I intend to pursue and advance this concept 
vigorously.

    Question 11. As U.S. Ambassador to Korea, and as a Japanese-
American, how will you handle these issues and assure that our two 
important Northeast Asian allies maintain a constructive relationship?

    Answer. If confirmed, I'll work hard to emphasize that my personal 
ethnic background is representative of the strength and diversity of 
America. That a Japanese-American boy from rural Tennessee who 
immigrated with his mother from Japan can rise to be a 4-star Admiral 
in command of all U.S. military forces in the Pacific and then be 
nominated to be the Ambassador to a key American ally is emblematic of 
America as a nation of immigrants and a country that values diversity. 
I will endeavor to ensure Embassy Seoul works closely with the 
Department and Embassy Tokyo to remain in close contact with the ROK 
and Japan to coordinate our DPRK engagement. President Trump spoke with 
President Moon and Prime Minister Abe before and immediately after the 
U.S.-DPRK Summit, and Secretary Pompeo spoke with Foreign Minister Kang 
and Foreign Minister Kono shortly after the summit. I also understand 
that Secretary Pompeo visited Seoul from June 13-14 to provide an in-
person readout of the summit to President Moon, ROK Foreign Minister 
Kang, and Japan Foreign Minister Kono. Our alliances remain ironclad, 
and ensure peace and stability in the region.

    Question 12. China: Both the U.S. and Korea are interested in 
encouraging China to be a responsible global and regional leader.How do 
you plan on working with Korea in order to build a collaborative 
regional framework that will ensure China follows established 
international economic rules, and supports international institutions, 
laws, and norms?

    Answer. The U.S.-Republic of Korea alliance has served as a pillar 
of regional peace and stability and we cooperate closely on a wide 
range of global priorities, including engagement with China. Our 
relationship is anchored by a shared commitment to democratic values 
and the rule of law.
    If confirmed, I believe the United States should remain engaged to 
maintain U.S. power and influence, and to work with allies and partners 
to address areas in which China's actions are undermining established 
rules and norms. If confirmed, I will work closely with our South 
Korean allies to draw attention to, and contest, Chinese policies and 
actions that undermine the international order.

    Question 13. What is your understanding of the administration's 
Indo-Pacific strategy?

    Answer. The Indo-Pacific strategy seeks to advance U.S. leadership 
and preserve a rules-based order in the region by redoubling our 
commitment to allies and partners, strengthening regional institutions, 
advancing our economic interests, and promoting U.S. values. The 
strategy has three lines of effort: security, economics, and 
governance. Regarding security, the aim is to build a resilient network 
of security partners, ensure regional stability, advance maritime 
security and respect of international law, including freedom of 
navigation and overflight and other lawful uses of the sea, by building 
our partners' capabilities, and encourage India to play a greater role 
in the region. In economics, the strategy seeks to advance free, fair, 
and reciprocal market-based trade and investment policies, diversify 
opportunities for trade and investment, and enable partners to build 
sustainable infrastructure that will increase regional connectivity. 
With respect to governance, the United States seeks to build capacity 
for good governance, preservation of national sovereignty and 
territorial integrity, respect for human rights and the rule of law, 
greater transparency, and adherence to international rules and 
standards.

    Question 14. How do you plan to advance it [Indo-Pacific Strategy] 
as Ambassador to the Republic of Korea?

    Answer. As a long-time ally and partner, the Republic of Korea is 
an important nation in helping us advance our Indo-Pacific Strategy. If 
confirmed as the U.S. Ambassador to the Republic of Korea, I will work 
with the President and Secretary of State to partner with the Republic 
of Korea so that we are working together to achieve the Indo-Pacific 
Strategy's objectives.

    Question 15. Following the Singapore Summit Secretary Pompeo stated 
that sanctions relief ``cannot take place until such time as we have 
demonstrated that North Korea has been completely denuclearized. 
President Trump stated that ``I hope it's going to be soon. At a 
certain point, I actually look forward to taking them off,'' following 
the summit. Other U.S. officials have discussed sanctions relief if 
North Korea takes steps towards denuclearization. And North Korean 
state media reported after the summit that President Trump had 
discussed lifting sanctions against Pyongyang during his talks with Kim 
in Singapore and that ``The President of the U.S. expressed the 
possibility of suspending the U.S.-South Korea joint military exercises 
. . . and, as progress is made from dialogue and negotiations, lifting 
sanctions against DPRK.'' Those positions all represent wildly 
different standards for when sanctions might be lifted off North Korea.

   What is your understanding of the statutory requirements for 
        sanctions relief?

    Answer. My current understanding is that sanctions remain in full 
effect until North Korea denuclearizes. The full implementation of U.N. 
Security Council resolutions by the international community brought us 
to this moment, and will ensure a successful outcome of this process.

    Question 16. Following the Singapore Summit Secretary Pompeo stated 
that sanctions relief ``cannot take place until such time as we have 
demonstrated that North Korea has been completely denuclearized.'' 
President Trump stated that ``I hope it's going to be soon. At a 
certain point, I actually look forward to taking them off,'' following 
the summit. Other U.S. officials have discussed sanctions relief if 
North Korea takes steps towards denuclearization. And North Korean 
state media reported after the summit that President Trump had 
discussed lifting sanctions against Pyongyang during his talks with Kim 
in Singapore and that ``The President of the U.S. expressed the 
possibility of suspending the U.S.-South Korea joint military exercises 
. . . and, as progress is made from dialogue and negotiations, lifting 
sanctions against DPRK.'' Those positions all represent wildly 
different standards for when sanctions might be lifted off North Korea.

   What is your understanding of U.S. Government policy regarding 
        sanctions relief?

    Answer. My current understanding is that sanctions remain in full 
effect until North Korea denuclearizes. The full implementation of U.N. 
Security Council resolutions by the international community brought us 
to this moment, and will ensure a successful outcome of this process.
    Question 17. Following the Singapore Summit Secretary Pompeo stated 
that sanctions relief ``cannot take place until such time as we have 
demonstrated that North Korea has been completely denuclearized. 
President Trump stated that ``I hope it's going to be soon. At a 
certain point, I actually look forward to taking them off,'' following 
the summit. Other U.S. officials have discussed sanctions relief if 
North Korea takes steps towards denuclearization. And North Korean 
state media reported after the summit that President Trump had 
discussed lifting sanctions against Pyongyang during his talks with Kim 
in Singapore and that ``The President of the U.S. expressed the 
possibility of suspending the U.S.--South Korea joint military 
exercises . . .  and, as progress is made from dialogue and 
negotiations, lifting sanctions against DPRK.'' Those positions all 
represent wildly different standards for when sanctions might be lifted 
off North Korea.

   What is your understanding of the agreement reached between 
        President Trump and Kim Jong Un in Singapore regarding 
        sanctions relief?

    Answer. I have not yet been briefed by principals who participated 
in the U.S.-DPRK Summit. However, I believe sanctions remain in full 
effect until North Korea denuclearizes. The full implementation of U.N. 
Security Council resolutions by the international community brought us 
to this moment, and will ensure a successful outcome of this process.

    Question 18. Following the Singapore Summit Secretary Pompeo stated 
that sanctions relief ``cannot take place until such time as we have 
demonstrated that North Korea has been completely denuclearized. 
President Trump stated that ``I hope it's going to be soon. At a 
certain point, I actually look forward to taking them off,'' following 
the summit. Other U.S. officials have discussed sanctions relief if 
North Korea takes steps towards denuclearization. And North Korean 
state media reported after the summit that President Trump had 
discussed lifting sanctions against Pyongyang during his talks with Kim 
in Singapore and that ``The President of the U.S. expressed the 
possibility of suspending the U.S.-South Korea joint military exercises 
... and, as progress is made from dialogue and negotiations, lifting 
sanctions against DPRK.'' Those positions all represent wildly 
different standards for when sanctions might be lifted off North Korea.

   What is your understanding of what North Korea believes that 
        understanding to be?

    Answer. My current understanding is that sanctions remain in full 
effect until North Korea denuclearizes. The full implementation of U.N. 
Security Council resolutions by the international community brought us 
to this moment, and will ensure a successful outcome of this process. 
While I'm currently not in a position to determine what North Korea's 
understanding regarding sanctions is, I believe that, following 
Secretary Pompeo's clear and unequivocal statements, North Korea should 
be under no illusions about the seriousness with which the U.S. ties 
sanctions relief to actual and complete denuclearization .

    Question 19. If confirmed, how do you view your role in 
coordinating with the Republic of Korea to assure that the United 
States and the Republic of Korea maintain a common and unified position 
on this issue?

    Answer. I understand we remain in constant and close contact with 
the Republic of Korea about our unified response to North Korea. If I 
am confirmed, there will be no change in this posture as I will make 
communication and engagement with the Government of the Republic of 
Korea my top priority.

    Question 20. As Ambassador, if confirmed, what sort of 
consultations do you think are constructive and necessary when 
different voices in the United States administration appear to offer 
different views on critical issues for diplomacy and denuclearization?

    Answer. I have always sought out diverse and different opinions to 
guide me throughout my career. If confirmed, I plan to take the same 
approach as the U.S. Chief of Mission in Korea.

    Question 21. On April 20, 2018 North Korean Government announced it 
would suspend nuclear testing. On May 16 its ambassador to the 
conference on disarmament said North Korea ``will join international 
disarmament efforts for a total ban on nuclear tests'' and on May 24 
before a group of invited journalists North Korea apparently destroyed 
entrances to some of the test tunnels at its Punggye-ri site.
    In recent weeks, U.S. allies including Japan and France have called 
upon North Korea to solidify its no-test pledge by signing the 1996 
Comprehensive Nuclear Test Ban Treaty. Meanwhile, U.N. Secretary 
General Gutuerres and thee Executive Secretary of the CTBTO Technical 
Secretariat Dr. Lassina Zerbo have suggested that, if invited, the 
CTBTO can help provide on-site technical assessment of the Punggye-ri 
site ``closure'' activities, which would may yield data relevant to a 
better understanding the history of the North Korea's nuclear tests and 
how much nuclear material it may have used up in the process.

   Is the United States satisfied that these actions provide a 
        sufficient legal and technical basis to monitor and verify that 
        that North Korea will permanently end nuclear weapons testing, 
        and if not, what specific legal, political, and technical 
        measures is the Trump administration pressing North Korea to 
        take in order to do so?
   And has the USG been in communication or in consultation with our 
        allies, the UNSG, and/or the CTBTO regarding monitoring and 
        verification of North Korea's nuclear test halt pledge?

    Answer. I welcome the DPRK's announcement that it will suspend its 
nuclear testing program and dismantle its nuclear testing site. In the 
June 12, 2018 summit joint statement, Chairman Kim Jong Un reaffirmed 
his firm and unwavering commitment to complete denuclearization. The 
President made clear he did not expect we could solve all issues in one 
meeting. The U.S. and the DPRK will hold follow-on negotiations led by 
Secretary Pompeo to implement summit outcomes.
    The independent inspection and full verification by international 
experts of the dismantlement of all nuclear weapons sites, including 
the nuclear test site, is a key step in the complete, verifiable, 
irreversible denuclearization of the Korean peninsula. As the President 
said, the complete denuclearization of North Korea will be verified. 
Observation by journalists is not sufficient. The United States remains 
in regular communication with allies and partners, including 
international organizations, on achieving denuclearization of the 
Korean peninsula.

    Question 22. If you are confirmed as Ambassador to the Republic of 
Korea how will you explain President Trump's moral and ethical views 
about human rights to the Korean people?

    Answer. As stated in the State Department's most recent Human 
Rights Report, we are a nation founded on the belief that every person 
is endowed with inalienable rights. Promoting and defending these 
rights is central to who we are as a country. The President's foreign 
policy reflects who we are and promotes freedom as a matter of 
principle and interest. I will work to ensure the Republic of Korea 
knows we seek to lead other nations by example in promoting just and 
effective governance based on the rule of law and respect for human 
rights, and that the United States will continue to support those 
around the world struggling for human dignity and liberty.

    Question 23. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. While our diplomats overseas normally have the lead on 
issues of democracy and human rights in other countries, the military 
has a role to play, particularly in those countries led by 
authoritarian regimes. In my previous uniformed life as the Pacific 
Command commander, three examples come to mind which gets at your 
question. First, I was the first 4-star in many years to visit Thailand 
following that country's coup in 2012. In 2017, I opened exercise Cobra 
Gold and, during my public address, I encouraged Bangkok to return to 
full-throated democracy as soon as possible. I reiterated this in my 
meetings with the highest level of Thai Government and military 
leaders. In the Philippines, another important treaty ally of the U.S., 
I encouraged that country's leaders, both civilian and military, to 
avoid involving the Armed Forces of the Philippines in operations where 
allegations of extra-judicial killings might arise. Finally, I made 
Women, Peace, and Security a major theme of my tour. I believe these 
actions contributed to Bangkok's stated intent to hold elections next 
February and to the Armed Forces of the Philippines remaining generally 
untainted by allegations of human rights violations. I am proud of my 
military career and, if confirmed, I look forward to my new role as the 
President's leading diplomat in the Republic of Korea, where both 
democracy and human rights will be front and center in much of what I 
would do as the U.S. Ambassador to the Republic of Korea.

    Question 24. What issues are the most pressing challenges to 
democracy or democratic development in Korea, in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. The June 13 regional elections in the Republic of Korea, as 
well as the country's 2017 presidential election were considered free 
and fair. So, while work in democratic development continues, the 
country has made great strides in recent decades. Given President 
Moon's push for increased transparency, the near-term signs are good 
for continued democratic development. Regarding challenges, the State 
Department's 2017 Country Report on the Republic of Korea highlights 
the most significant human rights issues as: government interpretation 
and application of the National Security Law, libel laws, and other 
laws that limited freedom of expression and restricted internet access; 
corruption; domestic violence; and the military's prosecution of male 
soldiers for homosexual activities, although President Moon's 
Government discontinued this action. If confirmed, I look forward to 
getting to the Republic of Korea to better understand these issues and 
what the United States can do to help address these ongoing challenges.

    Question 25. What steps will you take--if confirmed--to support 
democracy in Korea? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. President Moon was elected in the wake of the Republic of 
Korea's candle light revolution which led to the impeachment of his 
predecessor. To date, he has made transparency and rooting out 
corruption cornerstones of his presidency. If confirmed, I will work 
with President Moon and his government to better understand his efforts 
to further democracy within the Republic of Korea to make sure the 
country continues on its current path of strong, democratic 
development.

    Question 26. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Democracy and governance will be important priorities for 
me if confirmed as the U.S. Ambassador to the Republic of Korea. While 
I am encouraged by President Moon's focus on both democracy and 
governance, it is too early for me to say specifically what I will do 
to maximize the impact of State Department and USAID funding to further 
our efforts in the Republic of Korea. But, I can assure you that as I 
undertake my consultations in Washington to better understand current 
operations and should I be confirmed and upon arriving in Seoul, I will 
focus on democracy and governance to ensure the United States is doing 
what it can, and should, to further these traditional United States 
foreign policy hallmarks in the Republic of Korea.

    Question 27. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Washington and in Korea? What steps will you take to pro-
actively address efforts to restrict or penalize NGOs and civil society 
via legal or regulatory measures?

    Answer. Yes. If confirmed, I will prioritize meeting with civil 
society, human rights, and other non-governmental organizations in the 
Republic of Korea and Washington. If confirmed, and given the urgency 
to get the President's new Ambassador to Seoul, it is doubtful I would 
be able to conduct these meetings before my initial departure. That 
being said, meeting with these groups in the Republic of Korea will be 
a priority and I will make it a priority to meet with these groups 
whenever I am back in Washington. For the most part, and per the State 
Department's most recent Human Rights Report, most of these groups 
generally operate without government restrictions in the Republic of 
Korea. However, there are several civil society groups, NGOs, and 
umbrella labor unions that have encountered problems in recent years 
and if confirmed I will be sure the United States continues to call out 
these problems while also providing support when possible.
    Question 28. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes. The United States makes a point to meet regularly with 
democratically oriented political opposition figures and parties. I 
understand that our diplomats have traditionally done this in the 
Republic of Korea and we will continue to do this should I be confirmed 
as the U.S. Ambassador to the Republic of Korea. Of course, and perhaps 
ironically, the primary political opposition in Korea today is the 
center-right and conservative parties which support the ousted former 
president. I will advocate for access and inclusivity for women, 
minorities, and youth within political parties.

    Question 29. Will you and your Bureau leadership team actively 
engage with Korean leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Korea?

    Answer. Yes. If confirmed, I and my country team will actively 
engage with Korean leaders on freedom of expression, including for the 
press and address any government effort to control or undermine press 
freedom. If confirmed, I will meet regularly with independent, local 
press in the Republic of Korea.

    Question 30. Will you and your leadership team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
region?

    Answer. Yes. If confirmed, I will engage actively with civil 
society and government counterparts to counter disinformation and 
propaganda from foreign state or non-state actors.

    Question 31. Will you and your Bureau leadership team actively 
engage with Korean interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. Yes, if confirmed, I and my country team will actively 
engage with Korean interlocutors on the right of labor groups to 
organize, including for independent trade unions.

    Question 32. The United States has been a loud voice globally in 
the struggle against discrimination, and specifically against 
discrimination towards women and members of the LGBTI community. What 
kind of efforts do you envision undertaking to protect the rights of 
all citizens and oppose discrimination?

    Answer. If confirmed, and just as I have done in the military, I 
will be a voice in the struggle against discrimination. If confirmed, 
and upon my arrival in Seoul, I would meet with Embassy Seoul personnel 
to better understand exactly what we have been doing to protect the 
rights of all and oppose discrimination. Should I be confirmed, and 
after consultations, I can better determine what more we can do to 
raise awareness and call attention to discrimination so that we can 
continue reducing its harmful impact.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Harry B. Harris, Jr. by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. While our diplomats overseas normally have the lead on 
issues of democracy and human rights in other countries, the military 
has a role to play, particularly in those countries led by 
authoritarian regimes. In my previous uniformed life as the Pacific 
Command commander, three examples come to mind which gets at your 
question. First, I was the first 4-star in many years to visit Thailand 
following that country's coup in 2012. In 2017, I opened exercise Cobra 
Gold and, during my public address, I encouraged Bangkok to return to 
full-throated democracy as soon as possible. I reiterated this in my 
meetings with the highest level of Thai Government and military 
leaders. In the Philippines, another important treaty ally of the U.S., 
I encouraged that country's leaders, both civilian and military, to 
avoid involving the Armed Forces of the Philippines in operations where 
allegations of extra-judicial killings might arise. Finally, I made 
Women, Peace, and Security a major theme of my tour. I believe these 
actions contributed to Bangkok's stated intent to hold elections next 
February and to the Armed Forces of the Philippines remaining generally 
untainted by allegations of human rights violations. I am proud of my 
military career and, if confirmed, I look forward to my new role as the 
President's leading diplomat in the Republic of Korea, where both 
democracy and human rights will be front and center in much of what I 
would do as the U.S. Ambassador to the Republic of Korea.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. As I testified, I am committed to diversity and the concept 
that America is stronger because of our diversity. If confirmed, I will 
draw on my personal background as an Asian-American to convey this to 
my Korean interlocutors and Embassy colleagues. That an Asian-American 
country boy from Tennessee can rise to become the 4-star Admiral in 
charge of all American forces in the Indo-Pacific, then be nominated to 
become our next Ambassador to the Republic of Korea, speaks to how we 
value diversity in America. Finally, I have received numerous national 
awards for my work in diversity.don't come to this as a novice; I'm a 
true believer!

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of Near Eastern Affairs are fostering an 
environment that is diverse and inclusive?

    Answer. I believe that people, including supervisors, follow orders 
better than they read minds. I confirmed, I intend to lay out my 
commitment to diversity and my expectations that they foster an 
inclusive environment that values all and demeans none.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff??

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.
                               __________


     Responses to Additional Questions for the Record Submitted to 
               Harry B. Harris, Jr. by Senator Tom Udall

    Question 1. The President stated that ``We will be stopping the war 
games, which will save us a tremendous amount of money, unless and 
until we see the future negotiations is not going along like it should. 
But we'll be saving a tremendous amount of money. Plus, I think it's 
very provocative.'' When you served as commander of U.S. Pacific 
Command, did you consider proper military preparation and exercises 
with our allies as ``provocative'' as the President just said?

    Answer. Our annual U.S.-ROK combined military exercises are 
transparent, defense-oriented, and have been carried out regularly and 
openly under the Combined Forces Command for over 40 years. They are 
designed to increase our readiness and maintain stability on the Korean 
Peninsula. Depending on the security environment, our exercises can be 
used both as a message of deterrence against aggressive behavior as 
well as an effective means of enhancing interoperability amongst 
allies. In fact, in 2017, I testified before the Senate Armed Services 
committee that we needed a robust exercise program with our Republic of 
Korea (ROK) ally. That said, as I testified last week, we are in a 
dramatically different place today than we were in 2017. Last year, 
North Korea was exploding nuclear weapons and launching ballistic 
almost willy-nilly. If war wasn't imminent in 2017, it was certainly 
possible, even likely. Now, following the President's summit with Kim 
Jong Un in Singapore, the strategic landscape has changed--for the 
better I might add. I believe we should give major exercises a pause to 
see how serious Kim Jong Un is regarding nuclear disarmament.

    Question 2. As the Commanding Officer of PACOM, can you give us an 
idea of how much the joint exercises with South Korea cost, and what 
percentage of your budget they represented? Will the U.S. actually be 
saving ``a tremendous amount of money'' as the President represented?

    Answer. I do not know the cost of our exercises with South Korea 
and, since I am no longer the Commander of U.S. Indo-Pacific Command, I 
ask that you refer to the Department of Defense for their latest 
estimates on those costs.

    Question 3. Will the military incur additional costs to improve 
readiness in the future if we cancel exercises now and our preparedness 
suffers?

    Answer. Our men and women in uniform are true professionals, and 
the United States remains committed to the defense of our allies. Our 
exercises are just one part of the varied and extensive preparation our 
military undertakes to meet that commitment to defend and deter. As the 
Vice President said, regular readiness training and training exchanges 
will continue.

    Question 4. As PACOM Commander, you stated that North Korea is the 
greatest threat we face. This week, President Trump tweeted: ``Just 
landed-a long trip, but everybody can now feel much safer than the day 
I took office. There is no longer a Nuclear Threat from North Korea.''

   However, North Korea still has nuclear weapons, the IAEA is not 
        allowed into North Korea, and there is no program in place to 
        denuclearize and verify. In your opinion, is North Korea QUOTE 
        ``no longer a nuclear threat'', as the President tweeted?

    Answer. As I testified last week, I believe North Korea still poses 
a nuclear threat to the United States. I also testified that I believe 
we can accept some risk to permit some breathing space for negotiations 
to continue and to assess whether Kim Jong Un is serious on his part of 
the deal or not. Peace is worth this risk. The President secured a DPRK 
commitment to complete denuclearization of the Korean Peninsula. I 
understand the challenges that lay ahead, but this is the bold first 
step to completely, verifiably, and irreversibly denuclearize North 
Korea.

    Question 5. Has there been a reduction in centrifuges enriching 
uranium in North Korea?

    Answer. I do not know. I left PACOM on May 30. A lot has happened 
in the U.S.-ROK -- North Korea space since then and I have not been 
briefed on latest developments. Addressing the DPRK's enrichment 
capabilities is a key element of the complete, verifiable, and 
irreversible denuclearization of the DPRK. I would ask that you refer 
this question to the intelligence community.

    Question 6. Have the scientists and engineers responsible for 
nuclear and missile research and development been told to stop work?

    Answer. I do not know. I left PACOM on May 30. A lot has happened 
in the U.S.-ROK -- North Korea space since then and I have not been 
briefed on latest developments. I would ask that you refer this 
question to the Intelligence Community. In the June 12 Joint Statement 
from the U.S.-DPRK summit, Chairman Kim Jong Un reaffirmed his firm and 
unwavering commitment to complete denuclearization. The role of 
scientists and engineers working on the DPRK's unlawful nuclear and 
ballistic missile programs will need to be addressed as a part of 
complete denuclearization. I know that U.S. negotiators are eager to 
see this process progress as quickly as possible.

    Question 7. President Trump rejected the Iran deal--a highly 
detailed agreement that required Iran to get rid of its nuclear weapons 
within a time frame and subjected Iran to strong verification 
measures--the strongest in history. The President reneged on our 
agreement with Iran.

   So why should the North Koreans--or the world--believe that we will 
        uphold our end of the bargain if we enter into an agreement 
        with North Korea?
   Are there any specific improvements upon the Iran agreement that 
        are in the Trump administration's agreement with North Korea?

    Answer. Our relationships with countries around the world stand on 
their own merits. In Singapore, the President secured a DPRK commitment 
to complete denuclearization and built a good working relationship with 
Chairman Kim. This is the beginning of the process to completely, 
verifiably, and irreversibly denuclearize North Korea. The 
administration looks forward to follow-on negotiations, led by the U.S. 
Secretary of State Mike Pompeo, at the earliest possible date to 
implement the outcomes of the U.S.-DPRK summit.
    President Trump is not pursuing discussions with Kim Jong Un just 
for the sake of a deal. If anything, the North Korea situation shows 
the folly of doubling down on a bad nuclear agreement. The United 
States is serious about complete, verifiable, and irreversible 
denuclearization of North Korea. I am not privy to any linkages between 
the Iran deal and the Singapore Summit, especially in terms of 
improvements to the former as an outcome of the latter.

    Question 8. If your nomination is confirmed, will you pledge to 
work with the nuclear experts at our national labs to ensure that all 
pathways to a nuclear weapon are cut-off?

    Answer. Yes. American nuclear experts are the best in the world and 
their extensive knowledge will greatly contribute to the complete, 
verifiable, and irreversible denuclearization of the DPRK.

    Question 9. The summit gave Kim Jung Un equal footing as the 
President of the United States on the world stage--while President Moon 
of South Korea has largely taken a back seat. What is the role of South 
Korea in the denuclearization talks and in denuclearization of the 
peninsula? If confirmed, how will you ensure we keep in lock step with 
our ally? And how will you make sure that South Korea is part of the 
conversation and decision-making?

    Answer. We remain in close contact with the ROK to coordinate our 
DPRK engagement. President Trump spoke with President Moon before and 
immediately after the U.S.-DPRK Summit, and Secretary Pompeo traveled 
to Seoul to speak spoke with President Moon and Foreign Minister Kang 
(as well as Foreign Minister Kono of Japan) immediately shortly after 
the summit. If confirmed, I will continue to strengthen our lines of 
communication with the ROK. We will maintain all of our alliance 
commitments. There is absolutely no change to our commitment to the 
defense of the Republic of Korea.

    Question 10. North Korea sees denuclearization as entailing the 
exit of U.S. troops from the peninsula and the withdrawal of the U.S. 
nuclear umbrella for South Korea and Japan. As the Ambassador to the 
Republic of Korea and as the former Commander of the Pacific Command, 
would you recommend withdrawing our troops from South Korea? Would you 
recommend removing South Korea and Japan from the United States' 
nuclear umbrella?

    Answer. As I stated in my testimony, any decisions we make with 
regard to U.S. troop levels in the Republic of Korea will be made 
together with our South Korean ally. These must be alliance decisions 
and not unilateral decisions. That said, I want to be clear: there is 
absolutely no change to U.S. commitment to the defense of the Republic 
of Korea and Japan. South Korea and Japan's security is America's 
security, and the United States will continue to meet all of its 
alliance commitments to both of our allies.

    Question 11. Secretary Pompeo has said that the U.S. ``has been 
fooled before'' by North Korea. And the fact Kim Jung Un's statements 
on denuclearization at the summit use the same language that his 
father, Kim Jong-il, used in the 1990s when President Clinton was 
engaged in talks with North Korea should be highlighted. If there is a 
deal but it turns out we got fooled again, what would be your 
recommended course of action? Would you recommend a ``bloody nose'' 
strategy?

    Answer. The President has made clear that we will suspend major 
exercises with South Korea until and unless the talks with North Korea 
break down. The United States seeks peace on the Korean peninsula and, 
thanks to our robust diplomatic, economic, and military pressure on the 
DPRK, we are in a place where peace is a possibility. But, we are also 
realistic--there is absolutely no change to our commitment to the 
defense of the Republic of Korea and Japan. South Korea and Japan's 
security is America's security, and we will continue to meet all our 
alliance commitments to both of our allies. Finally, as I testified 
before the Senate Armed Service committee earlier this year, I had no 
``bloody nose strategy'' in my toolkit at PACOM.

    Question 12. In your opinion, what more needs to be done to 
reconcile the relationship between Japan and South Korea? And how will 
you work to ensure the two countries show a united front on issues of 
mutual importance?

    Answer. As the PACOM commander, I made improving the bilateral 
relationship between South Korea and Japan an important part of my 
theater strategy. While the United States does not, and should not, 
take sides in this century-long historical argument between our two 
allies, it is important to encourage them to reconcile their 
differences in the face of a common threat from North Korea and a 
common challenge from China. If confirmed, I will endeavor to ensure we 
remain in close contact with the ROK and Japan to coordinate our DPRK 
engagement. President Trump spoke with President Moon and Prime 
Minister Abe before and immediately after the U.S.-DPRK Summit, and 
Secretary Pompeo spoke with Foreign Minister Kang and Foreign Minister 
Kono shortly after the summit. Secretary Pompeo visited Seoul from June 
13-14 to provide an in-person readout of the summit to President Moon, 
ROK Foreign Minister Kang, and Japan Foreign Minister Kono. U.S. 
alliances remain ironclad, and ensure peace and stability in the 
region.

    Question 13. There has been a good deal of confusion about exactly 
what was agreed to at the Singapore summit. Have you been briefed on 
the precise parameters of the agreement by senior administration 
officials? If yes, could you set forth the provisions of the agreement 
with as much specificity as possible?

    Answer. No, I have not yet been briefed by principals who 
participated in the U.S.-DPRK Summit.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Harry B. Harris, Jr. by Senator Todd Young

    Question 1. I was pleased to see that the joint statement between 
President Trump and Kim Jong Un included an explicit commitment from 
North Korea to ``recovering POW/MIA remains, including the immediate 
repatriation of those already identified.'' Many Americans are still 
trying to recover the remains of their loved ones who fought and died 
in the Korean War. According to the Defense POW/MIA Accounting Agency 
(DPAA), ``More than 7,800 Americans remain unaccounted for from the 
Korean War,'' including 176 from Indiana.

   If confirmed, do I have your commitment that you will do all you 
        can to help bring our fallen heroes from the Korean War home, 
        and that you will let me know if there is anything I can do to 
        be helpful?

    Answer. Yes. If confirmed I will support the recovery of remains 
from the Korean War in any way I can.

    Question 2. Based on your military and command experience, what do 
you see as the benefits for the United States of our military presence 
in South Korea?

    Answer. Our men and women in uniform serving in the Republic of 
Korea provide stability not just to the peninsula, but also to the 
entire region. That stabilizing presence affords great protection and 
benefit to the United States. Longstanding American commitment to the 
security of the region provides stable conditions, including for free 
and open trade and cultural exchange.

    Question 3. Do the benefits for the United States of having our 
troops in South Korea extend beyond the North Korean threat? What are 
some of those additional benefits?

    Answer. Our military presence in the Republic of Korea is not only 
stabilizing to the peninsula but to the entire region. In addition to 
being ready to meet our treaty obligations to our allies in the region, 
U.S. and international forces conduct training with allies and 
partners, enhancing interoperability and readiness.

    Question 4. Based on your experience as Indo-Pacific Command 
Commander, do you believe China and Russia would like to see U.S. 
troops leave South Korea? Why do you believe China and Russia would 
like to see U.S. troops leave South Korea?

    Answer. Our longstanding alliance with the Republic of Korea, 
including our military presence, is a bilateral U.S.-ROK issue. China 
and Russia do not have a vote in our troop presence in the Republic of 
Korea. Our military presence on the peninsula, and in the region, is a 
stabilizing force that promotes peaceful conditions for the benefit of 
all countries. China and Russia are also benefitting from the stability 
and the free and open conditions for economic growth undergirded by the 
presence of U.S. and allied forces in the Indo Pacific.

    Question 5. Can you provide a general overview from your 
perspective regarding Chinese activities in the South China Sea? Can 
you discuss China's militarization of the artificial islands? What are 
the implications of that? Do you have any thoughts on how we can 
respond in a more multilateral and effective manner to China's 
activities in the South China Sea?

    Answer. The United States continues to call out publicly and 
privately Chinese policies and actions that run counter to U.S. 
national interests. Specifically, the U.S. makes clear that China's 
militarization activities should halt in keeping with President Xi's 
2015 commitment not to militarize the Spratlys, and ongoing activities 
raise concerns over China's sincerity in negotiating with ASEAN a 
meaningful Code of Conduct for the South China Sea consistent with 
international law.
    The United States works with our treaty allies and partners in the 
region, as well as with like-minded nations around the world, to uphold 
freedom of navigation and overflight, and other lawful uses of the sea 
in the South China Sea. This includes by flying, sailing, and operating 
wherever international law allows. Together with our allies and 
partners, including many ASEAN Member States, the administration has 
made increasingly clear our shared concerns over China's militarization 
of the region. If confirmed, I will join the administration as it 
continues to do so.

    Question 6. What is your assessment of China's core national 
security interests on the Korean peninsula?

    Answer. After the June 12 summit in Singapore, the Chinese Ministry 
of Foreign Affairs (MFA) issued a statement on the summit and its 
approach to North Korea. The MFA characterized China's position as 
``committed to and will make tireless efforts toward denuclearization 
of the Peninsula, the maintenance of peace and stability on the 
Peninsula and resolution of issues through dialogue and 
consultations.''
    I remain clear-eyed about China's track record on North Korea and 
its stated goals. If confirmed, I will work with Congress, the White 
House, and the rest of the administration to effectively pursue and 
attain U.S. national objectives on the Korean Peninsula.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Harry B. Harris, Jr. by Senator Cory A. Booker

                         ROK-U.S. Relationship

    Question 1. South Korea is one of the United States most important 
trading partners. Annual bilateral trade in 2017 reached $155 billion 
in goods and services, and South Korea is America's seventh largest 
trade partner. Yet the Trump administration has threatened South Korea 
with tariffs and talked about tearing up the Korea-U.S. Free Trade 
Agreement. My home state of New Jersey is home to a number of Korean 
firms that employ hundreds of workers.

   What will you do to maintain and improve the vital trading 
        relationship between South Korea and the United States?

    Answer. President Trump and President Moon have committed to foster 
expanded and balanced trade while creating reciprocal benefits and fair 
treatment between the two countries. The United States and ROK have 
strengthened an important economic relationship by agreeing to an 
exemption to steel tariffs for the ROK and substantial improvements to 
KORUS that will help rebalance our trade, reduce our trade deficit, and 
expand U.S. export opportunities. If confirmed, I will build on the 
President's 2017 visit to Seoul when 42 ROK companies announced their 
intent to implement 64 projects in the United States valued at $17.3 
billion over the next four years. Additionally, twenty-four ROK 
companies announced planned purchases of U.S. goods and services valued 
at $57.5 billion, to include $22.8 billion in energy purchases.

    Question 2. Was this decision to end or curtail the military 
exercises coordinated with South Korea?

    Answer. I was no longer serving in uniform with the United States 
military when this was being decided and I cannot speak to this point. 
As I stated during my testimony, it is critical as we move forward that 
decisions that affect the alliance be taken together with our South 
Korean ally. If confirmed, that will be my approach.

    Question 3. What will be the military and political impact of 
ending these exercises?

    Answer. There is absolutely no change to our commitment to the 
defense of the Republic of Korea. South Korea's security is America's 
security, and we will continue to meet all our alliance commitments. 
Our alliances remain ironclad, and ensures peace and stability in the 
region.

    Question 4. How will you ensure that important decisions such as 
this that impact the bilateral relationship are properly coordinated 
with South Korea?

    Answer. We have been in close contact with the ROK and Japan to 
coordinate our DPRK engagement and I will work to ensure this 
continues, if confirmed. President Trump spoke with President Moon and 
Prime Minister Abe before and immediately after the U.S.-DPRK Summit. 
Secretary Pompeo traveled to Seoul to personally meet with President 
Moon, Foreign Minister Kang and Japanese Foreign Minister Kono 
immediately after the summit.

                               __________


     Responses to Additional Questions for the Record Submitted to 
              Tibor Peter Nagy, Jr. by Senator Bob Corker

    Question 1. How will the administration treat humanitarian 
assistance in this review?

    Answer. The United States is committed to saving lives through 
principled humanitarian action that is not associated with predatory or 
corrupt behavior by parties to the conflict. I understand our 
humanitarian assistance will continue during the comprehensive review 
of all U.S. assistance programs to South Sudan.

    Question 2. What consideration will be given more broadly to U.S. 
assistance in the region, to South Sudan's neighbors, for their 
unwillingness to counter the financial flows and malign policies in 
South Sudan that put our long-term investments in each of these 
countries at risk?

    Answer. I understand that the United States is urging regional 
governments to prevent corrupt South Sudanese leaders from investing or 
conducting financial transactions within their countries, a policy I 
intend to vigorously advance if confirmed. The Intergovernmental 
Authority on Development (IGAD), and all regional and international 
partners, must also increase pressure on the warring parties to end the 
conflict. This pressure could include a multilateral arms embargo and 
targeted sanctions against South Sudanese leaders who continue to 
obstruct peace.

    Question 3. What diplomatic leadership will the administration 
provide in helping to urgently promote peace and fundamentally alter 
the current course of destruction end this man-made catastrophe?

    Answer. I understand the United States is deeply engaged with 
regional and international partners to seek an end to the conflict in 
South Sudan. If confirmed, I will support the administration's stated 
view that the only way forward for South Sudan is through a negotiated 
arrangement for an inclusive transitional government that reflects 
South Sudan's diversity, and which is structured to provide checks and 
balances on political and economic power. If confirmed, I will look 
into what more can be done to reach this goal in addition to the 
targeted sanctions, unilateral arms embargo, and other measures imposed 
over the last several months.

    Question 4. How are Gulf countries such as UAE and Qatar, as well 
as the Governments of Turkey and Egypt, influencing events and geo-
political calculations across East Africa and what is the impact of 
their involvement on U.S. national security interests?

    Answer. The Gulf States, Egypt, and Turkey are heavily engaged in 
and compete for political, security, and economic influence across East 
Africa. In Somalia, these countries provide considerable humanitarian 
and security assistance and have major economic investments, 
particularly in the transportation sector, much of which is 
constructive and consistent with U.S. interests. A notable exception 
has been engagement related to the Gulf dispute, where the UAE, in 
particular, has pressured the Federal Government of Somalia to publicly 
side with the Quartet (UAE, Saudi Arabia, Bahrain, and Egypt) against 
Qatar. This has exacerbated tensions between Mogadishu and its Federal 
Member States and undermined U.S.-backed stabilization and reform 
efforts.
    Regarding Sudan, the Gulf States support Sudan's engagement with 
the United States. Saudi Arabia has been active in encouraging more 
moderate policies. Qatar has been active in encouraging parties to the 
Darfur conflict to take steps toward a more sustainable peace. Egypt 
has recently been more engaged with Sudan and Ethiopia to resolve 
concerns and disagreements regarding the Grand Ethiopian Renaissance 
Dam (GERD) and related Nile water usage issues. That said, these 
countries are competing for influence in Khartoum and have diverse 
interests on a range of issues in Sudan including the GERD, the Yemen 
conflict, and Sudan's position in the Gulf dispute. If confirmed, I 
will continue to make United States' priorities known--including ending 
internal conflict, expanding humanitarian access, countering terrorism, 
improving regional stability, and advancing respect for human rights--
and coordinate with these countries on shared interests.

    Question 5. How are Chinese policies and loans also playing into 
the uncertain economic futures of these countries and the region?

    Answer. Studying Africa from outside of government for the past 
fifteen years, I have become concerned by some aspects of China's trade 
and investment with Africa, particularly non-transparent, concessionary 
lending and overreliance on imported labor for the completion of 
projects. I believe that China can play a role as a source of capital 
and knowledge for African development, but that it must apply the 
highest international standards of openness, inclusivity, transparency, 
and governance. If confirmed, I hope to engage with China on its role 
in Africa and, most importantly, work hard to encourage U.S. trade and 
investment on the continent.

    Question 6. What steps is the United States prepared to take should 
he register as a candidate in July?

    Answer. I understand that the administration has made clear that we 
expect the DRC to hold elections in December and for President Kabila 
to abide by his commitment to refrain from running or changing the 
constitution. President Kabila serving as a candidate would clearly be 
inconsistent with credible elections. If confirmed, I would support a 
strong administration response if President Kabila were to register as 
a candidate. I would consider a full range of options, including 
accelerated targeted sanctions among other steps. I understand the 
administration's immediate focus is to continue using the full range of 
foreign policy tools to press for greater progress on the electoral 
process and ensure that President Kabila abides by constitutional 
requirements and does not present himself as a candidate for the 
December elections.

    Question 7. What if any substantive steps will the United States 
employ prior to the decision date for candidates to register in order 
to achieve a reasonable electoral process without Kabila?

    Answer. If confirmed, I plan to continue the administration's 
active engagement in pressing for greater progress on the electoral 
process in the Democratic Republic of Congo (DRC). As part of 
continuing U.S. pressure, I am aware that the United States has been 
clear that it remains prepared to impose additional targeted sanctions, 
as developments warrant. Steps taken by the DRC Government between June 
and August will be critical in determining the prospects for credible 
elections in December. To this end, I understand that the 
administration is employing the full range of foreign policy tools in 
support of our objectives. This policy approach includes targeted 
sanctions; international coordination and pressure, including with our 
European and African partners as well as the U.N.; public messaging; 
diplomatic engagement, including senior-level visits; and technical 
assistance to support a transparent and credible process.

    Question 8. How will the United States contribute to support a 
reasonable election in DRC, including the specific financial 
commitment, if Kabila selects an alternative candidate to himself?

    Answer. If confirmed, I will continue U.S. diplomatic efforts to 
make clear to the DRC Government and the DRC's electoral commission, 
the CENI, that the administration stands ready to support a process 
that is credible and inclusive. I will work closely with USAID, as well 
as our international donor partners, to determine how best the United 
States can support a credible, inclusive electoral process in the DRC, 
possibly through additional programming if there are positive steps.
    USAID has provided approximately $37 million in election and 
political processes support since 2013. USAID is providing civic and 
voter education to an estimated 1.9 million Congolese through civil 
society organizations, face-to-face community campaigns, and through a 
nationwide media campaign. USAID also supported DRC's leading domestic 
observer group to monitor voter registration and provide timely 
recommendations to the CENI. USAID funding also supports democratic 
activists, such as human rights defenders, and the media, which brings 
greater transparency to the electoral process.

    Question 9. What is the status of U.S. diplomatic efforts to 
convince other donors to step up to meet these mutual international 
resource appeals?

    Answer. The administration has regular discussions with like-minded 
allies, including the EU, France, and UK, to discuss the need for 
greater assistance to Africa to support peace and security, 
development, and humanitarian efforts, and the need to coordinate 
assistance among foreign partners. Each of these partners has expressed 
a willingness to work with us to achieve shared goals related to these 
critical issues in the region. If confirmed, I will engage our partners 
regularly to ensure our shared goals and objectives on the Continent 
are addressed appropriately and in a coordinated manner.

    Question 10. How will the United States reinforce and help sustain 
these courageous steps of this new government while assuring principled 
expectations of sustained reform and good governance?

    Answer. If confirmed, I will ensure that United States policy 
continues to support and encourage the reform agenda of Prime Minister 
Abiy in Ethiopia. The United States is actively highlighting the many 
new opportunities for American investment in Ethiopia, even as State 
and other U.S. agencies continue other political, economic, 
developmental, and humanitarian support for the people of Ethiopia and 
their fast-growing economy.

    Question 11. What would such reform and improved policies mean for 
the already strong bilateral relationship with the United States?

    Answer. For decades, the United States Government has steadfastly 
expressed its concern over human rights issues, political and economic 
freedom, and other matters to the Government of Ethiopia. During those 
years, the U.S. and Ethiopian Governments have managed to maintain a 
close and strategic relationship. However, the reforms you have 
described might be characterized as the dawn of an Ethiopian Government 
the United States--and the people of Ethiopia--hoped to see for those 
many years. These reforms, which must be supported and strengthened 
internally and with the help of Ethiopia's friends like the United 
States, will benefit both countries and help deepen our historic and 
significant relationship.

    Question 12. Given that the scheduled election in Zimbabwe on July 
30 is a critical juncture to assess the degree to which the new 
government leaders are committed and implementing fundamental reforms, 
will the administration send a senior and experienced diplomat to serve 
as Charge ad interim for the election period?

    Answer. I understand that the White House nominated Brian Nichols 
on June 4 to be the U.S. Ambassador to Zimbabwe. Brian Nichols is a 
Career Member of the Senior Foreign Service and was most recently the 
U.S. Ambassador to Peru. It would be ideal if Ambassador Nichols could 
be quickly confirmed so he could arrive in Zimbabwe before the 
election. I understand that, in the interim, the current Charge 
d'Affaires, a member of the Senior Foreign Service with well-
established credentials and experience and the confidence of her 
interlocutors and counterparts in Zimbabwe, will continue to lead the 
U.S. Embassy in Harare. If confirmed, I commit to giving my immediate 
attention to this important election and the resources we have deployed 
to contribute to a successful outcome.

    Question 13. How will the United States ensure that real and 
fundamental reform in Zimbabwe are the minimum necessary criteria for 
the United States to support any international financial relief of 
arrears or new financing, especially given the deep corruption and 
theft of state assets to date?

    Answer. I understand that our policy regarding arrears clearance or 
new international financing for Zimbabwe continues to be guided by the 
Zimbabwe Democracy and Economic Recovery Act (ZDERA), passed with 
strong bi-partisan support by Congress in 2001. ZDERA directs the 
Treasury Department, through the U.S. executive directors, to oppose 
and vote against any new lending or debt relief for Zimbabwe at the 
International Financial Institutions (IFIs), except for lending 
intended to support basic human needs or good governance. For this 
restriction to be lifted, the President must certify that a list of 
conditions have been satisfied. These conditions include restoration of 
the rule of law, including respect for freedom of speech and 
association, a presidential election widely accepted as free and fair 
or a pre-election environment consistent with international standards, 
a commitment to legal land reform, and control of the Zimbabwean Armed 
Forces by an elected civilian government.
    I believe strongly in the centrality of these democratic and 
governance principles and, if confirmed, will interpret them as 
Congress intended as real and credible benchmarks.

    Question 14. To what extent is Uganda likely to remain committed in 
Somalia on its own regardless of U.S. expectations due to the fiscal 
value of paying for their security forces?

    Answer. The Government of Uganda has repeatedly indicated that it 
remains steadfast in its participation in the African Union Mission in 
Somalia (AMISOM). A reduction in international support for the mission, 
particularly EU-financed troop stipends, could have a negative impact 
on that position, however.

    Question 15. To what extent is Uganda engaged in neighboring DR 
Congo, and how has that enflamed the region?

    Answer. Uganda shares a long border with the Democratic Republic of 
Congo (DRC) and hosts over 285,000 Congolese refugees in settlements. 
Uganda also considers the Allied Democratic Forces (ADF), a rebel group 
active in the DRC whose stated goal is the overthrow of the Ugandan 
Government, to be a national security threat. ADF forces have been 
responsible for a number of violent attacks in eastern DRC. For these 
reasons, Uganda remains engaged with the Government of the DRC from a 
national security and humanitarian perspective, including having 
conducted joint military operations against the ADF, and consults with 
other regional governments about increasing stability in the Great 
Lakes region. Uganda is also believed to be engaged in the illicit 
trade of gold from the DRC.

    Question 16. To what extent is Uganda working toward diminishing 
the necessity of foreign assistance, and what does the assistance 
timetable look like over the last ten years, and projected over the 
next five?

    Answer. Bilateral foreign assistance to Uganda, which aims to 
promote public health, accountable and transparent governance, economic 
development, and regional peace and stability, has been holding 
relatively steady at between $400 million and $500 million over the 
past several years. With a stated goal of growing the economy to become 
a middle-income country and diminishing its reliance on foreign 
assistance, the Government of Uganda has taken on increasing levels of 
national debt in recent years to develop its infrastructure for 
national transportation networks and electricity generation. Uganda has 
the fourth largest proven oil reserves in sub-Saharan Africa. If 
developed responsibly, Uganda could double its GDP as oil production 
comes online within the next five years. If confirmed, I will work with 
the Ugandan Government to leverage these developments and reduce 
Ugandan reliance on foreign assistance in the medium term.

    Question 17. What steps have been taken to more appropriately 
leverage U.S. cooperation and assistance to achieve a more sustainable 
Ugandan governance given the many instances of internal policies 
working at direct cross-purposes to U.S. interests? These include:

   The government massacre of Ugandans at Kasese
   The manipulation and apparent theft of massive UNHCR and WFP 
        resources intended to respond to refugees, including the 
        reported 1 million from South Sudan whose presence is in part 
        due to Uganda's ongoing support to President Kiir's man-made 
        crisis.
   Direct manipulation of multiple electoral processes and recent 
        forced parliamentary changes to enable President Museveni to 
        run for years to come.

    Answer. I fully concur that our development assistance to any 
country should carry with it expectations about governance and respect 
for human rights. If confirmed, I would continue to press for 
government accountability and reform on such fundamental issues.
    I understand that the U.S. Government continues to urge the 
Government of Uganda to conduct or permit fair and independent 
investigations into alleged human rights abuses, including the killings 
in Kasese. We have engaged at a high level with both the Ugandan 
Government and international assistance providers to address the 
allegations of fraud in refugee programs, and, if confirmed, I will 
prioritize our response to ongoing investigative reports.
    Our Embassy directly communicates with the Government to raise 
concerns about arrests and raids of non-profit organizations, as well 
as police investigations that serve to stifle the Ugandan people's 
right to free expression and tarnish Uganda's global image. If 
confirmed, I will continue to press for the protection and expansion of 
democratic rights.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Tibor Peter Nagy, Jr. by Senator Robert Menendez

    Question 1. If confirmed, what steps will you take to secure access 
to the Anglophone regions for international and domestic observers to 
ascertain the veracity of the current accounts of widespread government 
abuses in the area?

    Answer. I am deeply concerned about continuing violence, including 
against civilians, in the Anglophone regions. If confirmed, I will 
continue to call for an end to violence and will urge all sides to 
initiate a broad-based dialogue, without pre-conditions. All elements 
of Cameroonian society must undertake a genuine, inclusive dialogue to 
resolve these differences peacefully.
    The safety and security of American citizens is of paramount 
concern. All but mission-essential travel by U.S. Embassy Yaounde 
personnel to the Southwest and Northwest Regions is currently 
prohibited and private American citizens are discouraged from all but 
essential travel to these regions.
    With adequate security, greater access for observers to assess the 
situation on the ground is key to obtaining accurate information about 
humanitarian assistance needs and to investigating reports of human 
rights violations and abuses on both sides. If confirmed, I will work 
with our Embassy in Yaounde and international partners to urge the 
Government of Cameroon to facilitate that access and to hold 
accountable anyone responsible for human rights violations and abuses, 
on either side of the conflict.

    Question 2. What do you see as the role of the U.S. in addressing 
this escalating conflict?

    Answer. If confirmed, I will work with our Embassy in Yaounde to 
continue to call for an end to violence in the Anglophone regions and 
for unfettered humanitarian access, and to urge all sides to initiate a 
broad-based dialogue without pre-conditions. All elements of 
Cameroonian society must undertake a genuine, inclusive dialogue to 
resolve their differences peacefully.
    If confirmed, I will condemn the ongoing violence in the Anglophone 
regions perpetrated by both sides. I will also call on the Government 
of Cameroon to afford detainees all the rights and protections 
enshrined in Cameroon's constitution and consistent with the nation's 
international obligations and commitments, and to investigate promptly 
and transparently all allegations of human rights abuses perpetrated by 
Cameroonian security forces.

    Question 3. If confirmed, what steps will you take to reiterate the 
imperative that elections are held by the end of the year, and Kabila 
upholds his commitment to step down?

    Answer. If confirmed, I will continue the administration's pressure 
on the DRC Government to make clear that we expect the DRC to hold 
elections in December and that President Kabila will not run for re-
election, per his commitments made in December 2016. To this end, I 
would plan to continue the administration's policy of employing the 
full range of foreign policy tools in support of our objectives. This 
policy approach includes targeted sanctions; international coordination 
and pressure, including with our European and African partners as well 
as the U.N.; public messaging; diplomatic engagement, including senior-
level visits; and technical assistance to support a transparent and 
credible process.

    Question 4. What steps should be taken to ensure the human rights 
situation does not deteriorate further?

    Answer. If confirmed, I will continue the administration's active 
engagement in pressing for greater respect for human rights in the DRC. 
This includes condemning the excessive use of force by security 
services against civilians and government attempts to pass laws 
severely restricting civil liberties, holding accountable those 
responsible for human rights violations and abuses, supporting the 
implementation of U.N. resolutions, cooperating with the U.N. Office 
for the High Commissioner for Human Rights (OHCHR), and supporting 
human rights defenders and media freedoms. This also includes 
consideration of further use of our sanctions authorities against human 
rights abusers or those responsible for undermining democratic 
processes in the DRC. Finally, while elections alone will not solve 
DRC's human rights problems, they are critical to averting violence and 
improving the overall human rights climate in the country.

    Question 5. How will you coordinate with USUN and the Bureau for 
International Organizations on efforts to ensure elections by the end 
of the year?

    Answer. Coordination with our Mission to the U.N. and the Bureau 
for International Organizations has been an important part of our 
strategy to increase pressure on the DRC to hold elections in December. 
If confirmed, I will work closely with Ambassador Nikki Haley, who 
travelled to the DRC in October 2017, to ensure that the U.N. Security 
Council continues to call for elections and to coordinate on U.N. 
sanctions. I would also ensure that we continue our close cooperation 
with the U.N. Organization Stabilization Mission in the DRC (MONUSCO), 
which is required under its mandate to support the electoral process 
through a broad array of activities to ensure the holding of credible 
elections in December 2018.

    Question 6. Will you consider asking for the Appointment of a 
Special Envoy for the Great Lakes to assist with these efforts?

    Answer. If confirmed I will closely evaluate all current mechanisms 
which are in place to promote stability and an improved human rights 
environment in the Great Lakes region. I will then strongly advocate 
for any additional policies or processes which I believe will lead to 
the changes the U.S. seeks in the Great Lakes.
    The Department currently has a Senior Coordinator for the Great 
Lakes, the distinguished Ambassador (ret.) Laurence Wohlers. Ambassador 
Wohlers has a wealth of Africa experience and is spearheading our 
engagement with other Great Lakes envoys and key regional actors. If 
confirmed, I will work closely with Ambassador Wohlers to leverage the 
coordination, advocacy, and messaging work he is conducting with key 
African, international, and multilateral partners to maintain pressure 
on the DRC to hold elections in December.

    Questions 7. What do you see as key priorities for the U.S. in the 
short to medium term in light of the reforms being announced?

    Answer. If confirmed, I will insure that United States policy 
continues to support and encourage the reform agenda of Prime Minister 
Abiy in Ethiopia. We are actively highlighting the many new 
opportunities for American investment there, even as we continue our 
other political, economic, developmental and humanitarian support for 
the people of Ethiopia and their fast-growing economy. I believe it is 
of the utmost importance for us to help these reforms take root and 
flourish.

    Question 8. What specific steps, if any, should the U.S. take to 
support further reforms, especially in the area of democratization?

    Answer. I believe we can help advance these reforms by supporting 
the new government, and deepening our engagement where we can. If 
confirmed, I will continue our efforts to enhance democratization and 
good governance in Ethiopia. I expect some of the Prime Minister's 
legislative reforms, including changes to the laws on civil society and 
non-government organizations, will greatly improve our ability to 
provide support in those areas.

    Question 9. Should the U.S. continue to press for expansion of 
political space through participation in the U.S.--Ethiopia Working 
Group on Democracy, Governance and Human Rights?

    Answer. Yes. This Working Group has been an important and 
successful venue for both of our governments and, in my opinion, should 
continue. For decades, the U.S. Government has steadfastly expressed 
its concern over human rights issues, political and economic freedom 
and other matters to the Government of Ethiopia. During those years, we 
have managed to maintain a close and strategic relationship. However, 
the reforms you have described might be characterized as the dawn of an 
Ethiopian Government we--and the people of Ethiopia--have hoped to see 
for those many years. These reforms, which must be supported and 
strengthened internally and with the help of Ethiopia's friends like 
us, will bring us all benefits in deepening our historic and 
significant relationship. The dialogue created by this Working Group is 
an important part of our ongoing engagement.

    Question 10. How should the United States address the issue of 
allegations of abuses by security forces, including the military, and 
how should that impact our security assistance and cooperation?

    Answer. The United States has a long history of engagement with the 
Ethiopian National Defense Forces (ENDF), including in the context of 
U.N. Peacekeeping operations, where the ENDF has played a crucial and 
professional role as the largest provider of forces to the U.N. We have 
also very precisely explained our concerns with regard to reports of 
abuse or improper conduct by some ENDF personnel, largely inside 
Ethiopia. If confirmed, I will continue that close engagement and will 
support the new Prime Minister's efforts to improve the ENDF at all 
levels.

    Question 11. What diplomatic messages in your view should our 
Ambassadors in Riyadh, Ankara, Abu Dhabi and Doha be delivering about 
the actions these countries are taking that could potentially play a 
destabilizing role in the Horn of Africa? The UAE, Saudi Arabia, and 
Turkey have increased their military presence along the coast of the 
Horn of Africa--should the United States be concerned about a 
potential``base race'' in this turbulent region, particularly the 
implications for fragile states like Somalia and Eritrea?

    Answer. If confirmed, I will work with the Bureaus of European 
Affairs and Near Eastern Affairs to encourage our Ambassadors in 
countries engaged in the Gulf crisis to urge host governments to avoid 
pressuring third countries to take sides in the dispute. This message 
is particularly important in the Horn of Africa, where a number of 
fragile states rely heavily on support from both sides to the dispute 
for economic, political, and security development, including 
counterterrorism support. It also will be important to avoid a military 
build up of opposing forces in this region due to its proximity to 
strategic shipping lanes and susceptibility to further destabilization.

    Question 12. What impact has the dispute between Qatar, Saudi 
Arabia, and the UAE had on the border dispute between Djibouti and 
Eritrea? Has any other country stepped in to fill the mediation role 
previously played by Qatar? Are tensions between Djibouti and Eritrea 
likely to flare in the near term? Do the tensions between Djibouti and 
Eritrea pose any threat to our military presence in Djibouti? Are 
tensions likely to flare? What role if any should the U.S. play in 
reducing such tensions?

    Answer. Tensions between Qatar, Saudi Arabia, and the United Arab 
Emirates have significantly complicated the situation in the region, 
but I understand they are not likely to precipitate conflict between 
Djibouti and Eritrea. Though no other nation has stepped in to take 
over the Qataris' former mediation role on the border, Djibouti-Eritrea 
tensions have not worsened and we do not believe the situation on the 
border constitutes a threat to our military presence in Djibouti. If 
confirmed, I will urge all parties to disputes in the Gulf region to 
de-escalate tensions and refrain from any actions that could lead to 
instability among their neighbors.

    Question 13. How would you assess the roles played by the United 
Arab Emirates and Turkey in Somalia--are they playing constructive 
roles in supporting international efforts to stabilize the country?

    Answer. The United Arab Emirates and Turkey are among many partners 
that provide security and humanitarian assistance to Somalia. Both are 
also investing in transportation and other sectors of the Somali 
economy. The international community seeks to coordinate and deconflict 
the bilateral assistance efforts in Somalia through structures such as 
the Somalia Partnership Forum and Comprehensive Approach to Security. I 
understand the Gulf dispute has been a significant distraction for 
Somalia, as the UAE has put significant pressure on Mogadishu to side 
against Qatar, undermining stabilization efforts.

    Question 14. News reports indicate that the United Arab Emirates 
engages directly with Somalia's nascent Federal Members states, 
bypassing and/or allegedly seeking to circumvent the federal government 
at times. How is this direct engagement affecting the formation of 
relations between the Federal and state governments? In your view, does 
this have the potential to destabilize the Somali state?

    Answer. I understand that the United Arab Emirates and other 
international partners engage and invest with Somalia's Federal Member 
States, and that in some cases these activities have exacerbated 
tension between federal and regional authorities in Somalia. This 
tension has distracted the Somali authorities significantly from 
efforts to advance the federalism process and make progress on security 
sector reform. Somalia's long-term stability depends heavily on 
Mogadishu and its Federal Member States reaching agreement on an 
appropriate delineation of authorities between national and regional 
levels.

    Question 15. Tensions between the Somali Federal Government and the 
UAE appear very high right now--what messages should we be conveying to 
Abu Dhabi about its actions in the country? How might Al Shabaab seek 
to exploit the current situation? Is the recent disagreement over the 
legality of Somaliland's Berbera port deal with DP World linked to the 
Gulf crisis?

    Answer. If confirmed, I will work with the Bureau of Near Eastern 
Affairs and our Embassy in Abu Dhabi to emphasize to the UAE that its 
pressure on Mogadishu over the Gulf crisis runs counter to our shared 
goals of promoting peace and stability in Somalia. This includes 
efforts to combat al-Shabaab and promote reconciliation between 
Mogadishu and Somaliland. I understand that Mogadishu's challenge of 
the legality of the DP World's Berbera port deal with Somaliland has 
exacerbated tensions between Abu Dhabi and Mogadishu and reflects the 
political sensitivities surrounding Somali sovereignty issues.

    Question 16. South Sudan, plunged into a civil war in 2013 that has 
been characterized by largescale attacks on civilians, destruction and 
looting of civilian property, sexual violence including rape and gang 
rape, enforced disappearances, arbitrary arrests and prolonged 
detention, beatings and torture, and extrajudicial executions. Despite 
public pronouncements of support, the Government has made no progress 
on establishing a hybrid court as envisioned by the 2015 peace 
agreement. The U.S. has imposed sanctions on government officials, and 
imposed a unilateral arms embargo, yet attempts at a U.N. Security 
Council arms embargo have failed. Will you support a Special Envoy for 
Sudan and South Sudan?

    Answer. I understand that resolving the conflict and resulting 
humanitarian crisis in South Sudan is a top policy priority for the 
U.S. Government in Africa. If confirmed, I am committed to leveraging 
the available tools to achieve our goals for South Sudan effectively 
and efficiently, including by analyzing the value and impact of a 
Special Envoy.

    Question 17. What should the United States be doing to incentivize 
each member of the Intergovernmental Authority on Development to 
prioritize and pursue a sustainable peace in South Sudan?

    Answer. Achieving peace in South Sudan will require the assistance 
of South Sudan's neighbors. The Intergovernmental Authority on 
Development (IGAD) member states and all regional and international 
partners must increase pressure on the warring parties to end the 
conflict. I understand that the United States is urging IGAD member 
states to prevent corrupt South Sudanese leaders from investing or 
conducting financial transactions within their countries, a policy I 
intend to vigorously advance if confirmed. This pressure could include 
a multilateral arms embargo and targeted sanctions against South 
Sudanese leaders who continue to obstruct peace. If confirmed, I will 
reach out to neighboring IGAD countries bilaterally and through 
multilateral bodies such as the African Union (AU) to urge them to help 
us end the conflict by pressuring the warring parties, cutting off the 
flow of arms and ammunition, and stopping illicit financial flows from 
South Sudan to neighboring countries.

    Question 18. What role should the U.S. play in ensuring the peace 
process includes all relevant stakeholders, not just those who were 
party to the 2015 Agreement on the Resolution of the Conflict in South 
Sudan?

    Answer. I understand that the U.S. Government and its international 
partners demanded from the outset the participation of all relevant 
stakeholders in the Intergovernmental Authority on Development's High-
Level Revitalization Forum (HLRF) peace process. Through three rounds 
of the ongoing HLRF process, I understand participation has been 
expanded beyond the original signatories of the 2015 Agreement, to 
include a coalition of nine opposition parties, civil society members, 
and the South Sudanese Council of Churches.

    Question 19. What further steps do you believe the U.S. can take to 
support accountability for human rights abuses and crimes against 
humanity, including accountability for those at senior levels of the 
South Sudanese Government and opposition?

    Answer. I support accountability for human rights abuses in South 
Sudan. If confirmed, I will press the Government of South Sudan to 
cooperate with the African Union to establish the Hybrid Court for 
South Sudan. I would also support multilateral and domestic sanctions 
on those responsible for human rights abuses and crimes against 
humanity.

    Question 20. What efforts can the U.S. undertake that would further 
implementation of the 2015 peace agreement?

    Answer. I understand that the United States continues to play a 
very strong role in supporting the full implementation of the Algiers 
Accord for Peace and Reconciliation in Mali. The Embassy in Bamako is 
particularly active as an observer to the international mediation. In 
September 2017, the United States backed the establishment of a U.N. 
sanctions regime. I anticipate working closely with our partners on the 
U.N. Security Council to find ways to use this tool to pressure the 
parties to make progress in implementing the Algiers Accord. If 
confirmed, I intend to work closely with the interagency community and 
our international and regional partners to identify new pressures and 
inducements to move the process forward.
    Mali will hold presidential elections beginning on July 29. I 
believe it is essential that we engage early and at a high level with 
the next President to insist on full implementation of the Algiers 
Accord.

    Question 21. What actions should the U.S. take to help counter the 
spread of violent extremism in both central and northern Mali?

    Answer. I am concerned about the instability in Northern and 
Central Mali. If confirmed, I intend to look closely at the tools and 
resources we are utilizing to address this challenge and to work 
closely with international and regional partners. Ungoverned spaces 
like in Northern and Central Mali allow bad actors take advantage and 
exploit drivers of violet extremism. If confirmed, I will continue our 
on-going coordination with the Department of Defense, USAID, and our 
international partners to advance our development, security, and 
governance objectives in the Sahel, and address drivers of violent 
extremism.

    Question 22. What factors should be taken into consideration prior 
to resumption of U.S. security assistance for Mali?

    Answer. My understanding is that the United States continues to 
provide assistance to strengthen Malian security institutions and make 
its security forces better able to address the rapidly growing threat 
from violent extremists, including through bilateral support to Malian 
units deploying to the G5 Sahel Joint Force. Mali faces the enormous 
challenge of addressing a grave terrorist threat while at the same time 
reforming its security sector. As we help with both efforts, if 
confirmed I would insist that we continue to consider the forces' 
ability to respect human rights, maintain appropriate command and 
control, develop positive civilian-military relations, address 
corruption, and re-establish a constructive state presence in unstable 
areas. I believe the performance of Malian forces is central to peace 
and security in the country and the region. If confirmed, I will seek 
assurances from the Government of Mali to hold their forces accountable 
for poor performance and misconduct, and will target security 
assistance that allows Malian forces to contribute to domestic and 
regional efforts in a professional and sustainable manner.

    Question 23. What do you believe is the right approach for the 
United States when it comes to security cooperation with Nigeria?

    Answer. I believe that the U.S. Government needs a robust inter-
agency effort that aims to help the Nigerian Government and civil 
society address instability across Nigeria while building more capable, 
professional, and accountable Nigerian security forces that respect 
human rights and protect civilians. The U.S. Government must employ its 
full toolkit--including diplomacy, foreign assistance, senior military 
engagement, and security assistance--to help improve the Nigerian 
military's conduct and capabilities, to advance respect for human 
rights and upholding of the Law of Armed Conflict, to support security 
sector doctrinal and operational reforms, and to better enable the 
protection of civilians. We must press the Nigerian Government for 
credible, transparent, and thorough investigations into allegations of 
corruption and human rights violations, pursuing accountability for 
those responsible.
    I understand that due in part to our deepening military and 
diplomatic relationship, we are beginning to see positive steps toward 
change. For example, then acting President Osinbajo established an 
independent Presidential Investigative Panel in 2017 with a broad 
mandate to investigate allegations of human rights violations, the 
Nigerian military has created human rights desks, and the Nigerian Army 
is also taking increased action to hold soldiers found guilty of abuse 
to account transparently, in particular through court-martial 
proceedings in northeast Nigeria. We must continue to work to ensure 
these first steps lead to real change and accountability. If confirmed, 
I will ensure that our security cooperation with Nigeria continues to 
support our goals of respect for human rights and protection of 
civilians.

    Question 24. How can the U.S. strike the right balance between 
addressing national security and human rights concerns?

    Answer. To effectively combat both ISIS-West Africa and Boko Haram, 
the Nigerian military must become a force capable of effective military 
operations against asymmetric threats. It must also be a force that 
protects its citizens and respects human rights. In the press 
conference during his April 30 visit to the White House, President 
Buhari reiterated his deep commitment to the principles of human rights 
as well as the promotion and protection of people's freedom, even in 
the process of fighting terror. He also committed to ensure that all 
documented cases of human rights abuses are investigated and those 
responsible for violations held accountable for their actions. If 
confirmed, I will work to hold Nigeria to that commitment while 
bolstering Nigeria's long-term ability to maintain peace and security 
within its own borders.

    Question 25. To your knowledge, has anyone been held accountable 
for the Rann bombing or the Zaria massacre through a transparent legal 
process?

    Answer. As I understand, in December 2016, the Kaduna State 
Government accepted the findings of the state-level Judicial Commission 
of Inquiry that the Nigerian Army used ``excessive and 
disproportionate'' force in attacks against the Islamic Movement of 
Nigeria (IMN), which left at least 348 IMN members and one soldier dead 
in Zaria in December 2015. The Judicial Commission of Inquiry also 
recommended the prosecution of an army commander and the prosecution of 
other senior officers as well as ordered the State Commissioner of 
Police and the Attorney General to commence investigations. I am not 
aware that anyone accused of wrongdoing by the Judicial Commission of 
Inquiry has been held to account, but I will look into the matter if 
confirmed.
    I also understand that the Nigerian Government established an 
independent, civilian-led Presidential Investigative Panel in 2017 with 
a broad mandate to investigate allegations of human rights abuses by 
the military, including the events at Zaria in Kaduna State, but that 
the findings have not yet been made public.
    The January 2017 Rann bombing was a terrible tragedy. I understand 
that the Nigerian Government and military immediately assumed 
responsibility for the incident. The Nigerian Air Force established a 
six-person panel to investigate the incident, but I am not aware that 
that investigation has been made public or if anyone has been punished 
for wrongdoing. The Nigerian military initiated a number of corrective 
actions to prevent future such mistakes, including closer coordination 
with humanitarian organizations in the region and U.S.-provided air-to-
ground integration training. If confirmed, I will prioritize human 
rights and the protection of civilians, and press the Nigerian 
Government to hold those found guilty of wrongdoing to account.

    Question 26. If confirmed, what specific actions will you take as 
Assistant Secretary of State to support accountability for the Rann 
bombing and the Zaria massacre?

    Answer. If confirmed, I will underscore to the Nigerian Government 
that human rights abuses and impunity for such violations tarnish 
Nigeria's international reputation, undermine the trust of its 
citizens, impede counterterrorism efforts, and hinder U.S. ability to 
partner with Nigeria. I will urge the Nigerian Government to carry-out 
credible investigations into allegations of security force abuses and 
undertake more transparent efforts to end impunity and ensure 
accountability. The State Department will also continue to use its 
annual Country Reports on Human Rights Practices and other reporting to 
document publicly human rights concerns.
    I understand that in 2017, the Nigerian Government created an 
independent, civilian-led Presidential Investigative Panel in 2017 with 
a broad mandate to investigate allegations of human rights abuses by 
the military, including the events at Zaria in Kaduna State. If 
confirmed, I will press the Nigerian Government to release these 
findings publicly and hold those found guilty of wrongdoing to account.

    Question 27. Should we condition the delivery of Super Tucanos to 
the Government of Nigeria on assurances that the Government would share 
with us the findings of the investigation into either incident [Zaria 
or Rann]?

    Answer. It is my understanding that the United States sale of 
twelve A-29 aircraft to the Nigerian Government was concluded earlier 
this year. The Department did not specifically condition delivery, but 
this sale includes training and other components that are aimed at 
improving the professionalism of Nigerian security forces, and have a 
specific emphasis on protecting human rights, preventing harm to 
civilians, and upholding the Law of Armed Conflict. The sale is part of 
a broader strategy that, if confirmed I intend to continue, that aims 
to support a more capable and professional Nigerian security force that 
respects human rights and upholds the Law of Armed Conflict, and is 
better able to protect civilians from terrorism. If confirmed, I will 
urge timely and credible investigations into allegations of human 
rights abuses, broader and more transparent efforts to end impunity, 
and accountability for all individuals implicated in wrongdoing.

    Question 28. If confirmed, how will you work with the Government of 
Nigeria to address restriction of access, the lack of safety 
assurances, and bureaucratic impediments to ensure that U.S. assistance 
is the delivered effectively and efficiently to those in greatest need?

    Answer. I share your commitment to ensuring that U.S. humanitarian 
assistance is delivered effectively and efficiently to those in need. 
The Nigerian military provides escort and protection to humanitarian 
workers while also conducting offensive operations and protecting the 
civilian population from attack in a large geographic area. If 
confirmed, I will continue to support U.S. assistance to increase the 
capacity and professionalism of the Nigerian military. I will also 
encourage improved civilian-military coordination and increased 
dialogue and coordination between the military and humanitarian 
responders, and encourage the Government of Nigeria to reduce any 
hurdles to getting life-saving assistance to its population.

    Question 29. Do you believe climate change is real and that human 
activities that release of greenhouse gases into the atmosphere are the 
principle catalyst for climate change?

    Answer. The facts indicate the earth is getting warmer and that 
there is likely a human component and that Africa may be especially 
negatively impacted. As a global leader in innovation, I believe the 
United States will continue support for developing countries' energy, 
land use, and resilience activities where mutually beneficial to our 
broader foreign policy, economic development, and national security 
objectives.

    Question 30. It was recently reported that the White House has 
weighed whether to deliberately ignore climate change. Given that the 
threats from climate change can be seen across the African continent, 
do you believe that it is wise to ignore or debate the issue when it 
comes to engaging African leaders?

    Answer. I believe the United States supports a balanced approach to 
climate mitigation, economic development, and energy security that 
takes into consideration the realities of the global energy mix. 
Currently, the United States guiding principles are universal access to 
affordable and reliable energy, and open, competitive markets that 
promote efficiency and energy security, not only for the United States 
but for other countries, including those in Africa. Over the past 10 
years, the United States has shown that it can reduce emissions while 
growing the economy and promoting energy security. The United States' 
net greenhouse gas emissions have fallen by 12 percent since 2005 even 
as the economy has grown by 17.5 percent, adjusted for inflation. I 
believe the United States will continue supporting a balanced approach 
to climate mitigation, economic development, and energy security that 
takes into consideration the realities of the global energy mix.

    Question 31. What will be your strategy for engaging with African 
countries on challenges associated with climate change?

    Answer. If confirmed, I will work with other countries on advancing 
innovation in the development and deployment of a broad array of 
technologies that will ultimately enable us to achieve our climate and 
energy security goals. Currently, the United States, through our work 
with Power Africa, the Government has been able to catalyze some $60 
billion in energy investments that will provide modern energy services 
for roughly 300 million citizens across Africa by 2030. Beyond energy, 
I believe the United States will continue to help our partner countries 
reduce emissions from forests and other lands, to adapt to the impacts 
of climate change, and to respond to natural disasters.

    Question 32. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over the course of my career in the Foreign Service, I had 
the good fortune to perform work that allowed me to support democracy 
and human rights on a routine basis. Some examples that I find 
particularly notable include the following:

   Cameroon (Deputy Chief of Mission 1990-1993). When the Cameroon 
        Government, largely in response to domestic instability and 
        pressure from the U.S., allowed the first-ever multi-party 
        Presidential elections, I led the U.S. Embassy training and 
        monitoring efforts. I managed to obtain permission for the 
        National Democratic Institute's (NDI) delegation to be admitted 
        to the country and to observe the elections, and dispatched 
        Embassy observers to key voting areas. After the Governing 
        Party claimed victory there was considerable political 
        instability and the Government responded with force. I traveled 
        to the English-speaking part of Cameroon to personally 
        investigate the killing of demonstrators and submitted a report 
        for inclusion in the annual Human Rights report.
   Nigeria (Deputy Chief of Mission 1993-1995). My time coincided with 
        the illegal coup of General Abacha and the imprisonment of 
        Mashood Abiola, the rightful winner of the 1993 elections. I 
        maintained close personal relations with leading human rights 
        figures, including making high profile visits to them after 
        their imprisonment. I was the Embassy's contact with the 
        highest profile ``house arrestee''--General Obasanjo--whom I 
        visited at his farm and served as the conduit for his 
        correspondence with segments of the U.S. Government. Obasanjo 
        subsequently became President of Nigeria.
   Guinea (Ambassador 1996-1999). The Guinean Government arrested 
        Alpha Conde, the major opposition leader and kept him totally 
        incommunicado under house arrest. I pressed the Government and 
        obtained permission for a group of Western Ambassadors to visit 
        him, and provided him with materials to write, read, and listen 
        to the radio. I also maintained ongoing dialogue with all of 
        the opposition leaders. Alpha Conde subsequently won the 
        presidential elections and is currently Guinea's President.
   Ethiopia (Ambassador 1999-2002). I opened the Ambassador's 
        Residence on an ongoing basis for round table discussions with 
        key opposition leaders, despite the Ethiopian Government's 
        strong disdain for my actions. My residence was the one place 
        they could gather and communicate unhindered and not fear 
        arrest. I also personally investigated reports of the 
        Government killing demonstrators in a remote part of the 
        country.

    Question 33. What issues are the most pressing challenges to 
democracy or democratic development in Africa in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. Democratic deficiencies contribute to transnational threats 
across the region; therefore, I believe we must help states and 
communities foster legitimate, inclusive political systems that reduce 
fragility and mitigate risks of violent conflict and instability. The 
African continent has made important gains on democracy and institution 
building, however, those gains are fragile and must be supported over 
time. Elections are widely accepted as the norm in the region, but 
there is an increasing frequency of electoral events that contribute to 
democratic backsliding rather than consolidation. In many countries, 
corruption is endemic and state institutions remain weak. In addition 
to corruption, fiscal indiscipline and unaccountable public financial 
management systems in Africa gravely impact economic growth and 
democratic governance. Strong, accountable, and democratic 
institutions, sustained by a deep commitment to the rule of law and 
human rights, generate greater prosperity and stability, and meet with 
greater success in mitigating conflict and ensuring security than their 
less democratic counterparts.

    Question 34. What steps will you take--if confirmed--to support 
democracy in Africa? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Democracy is the foundation for a country's success. 
African voters understand how important democracy is, and they support 
it. When they are given the opportunity to vote, they do it 
enthusiastically. But again, elections alone do not define a democracy, 
particularly as some incumbents in Africa and elsewhere narrow or close 
altogether the space for competition, participation, and a free press 
long before an election is held. A healthy democracy requires checks 
and balances, including a strong judiciary and legislature, competitive 
political parties, a free press, and an engaged civil society. If 
confirmed, I am dedicated to strengthening democratic norms and 
institutions on the continent, which has made important, but fragile 
democracy and governance gains. I will also promote the rule of law, 
respect for human rights, adherence to constitutionally mandated term 
limits, and strong democratic institutions, which are all fundamental 
to a country's peace, security, and prosperity.

    Question 35. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work with my colleagues within the 
Department and at USAID to strategically apply resources to democracy, 
human rights, and governance (DRG) programs critical for safeguarding 
national security, fostering global prosperity, asserting U.S. 
influence and leadership, and ensuring foreign assistance programs are 
sustainable and effective. Recognizing the foundational importance of 
DRG programs to sustainable development, I will seek to advance these 
principles in Africa by utilizing resources to promote the rule of law 
and access to justice, respect for human and civil rights, credible and 
legitimate elections, a politically active civil society, and 
accountable and citizen-centered democratic governance. Working in 
partnership with African Governments and civil society, if confirmed, I 
will continue to support programs which strengthen governance 
institutions and protect the democratic and development gains that have 
been made across the continent and to prevent democratic backsliding.

    Question 36. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Washington and in Africa? What steps will you take to pro-
actively address efforts to restrict or penalize NGOs and civil society 
via legal or regulatory measures?

    Answer. If confirmed, I am committed to working with a broad 
spectrum of actors from African civil society. A robust and diverse 
civil society is imperative for the achievement of a peaceful and 
prosperous Africa. I will support mechanisms to protect human rights 
and respond to abuses and provide assistance to civil society 
organizations for human rights monitoring activities. I will strive to 
empower all Africans with particular emphasis on engaging and 
empowering women and youth to constructively shape and participate in 
their social, political, and economic environments. Civil society 
continues to face challenges to its role in representing and advocating 
for citizens, particularly where the enabling environment is closing or 
closed; therefore, I am committed to promoting and protecting the role 
of civil society as an essential element of citizen-centered democratic 
governance. I will support the development of the institutional 
architecture to support victims, enhance access to justice and promote 
voices that encourage local dialogue among Africans, respect the rule 
of law, foster civil society, and recognize the value of independent 
media.

    Question 37. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I am committed to working with all 
democratically engaged actors on the Continent, including political 
opposition parties. I will focus on enabling and supporting credible 
electoral processes that are participatory, representative, and 
inclusive. I will encourage engagement by key actors within civil 
society, advocate for independent national elections commissions, 
promote of minority representation in government, and support voter 
education and election observation programs. I will also encourage 
policies to increase women's, youth's and marginalized groups' 
political participation as voters, civil society members and leaders, 
political party leadership, and office holders at all levels of 
government.

    Question 38. Will you and your Bureau leadership team actively 
engage with African leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Africa?

    Answer. If confirmed, I will champion a free press and open media 
in line with the National Security Strategy, which states,``An informed 
and engaged citizenry is the fundamental requirement for a free and 
resilient nation.'' As disinformation and manipulation work best in a 
monopolized information space, I will work with allies and partners to 
encourage and support professional, balanced, and fact-based reporting, 
and expose and counter hostile disinformation campaigns. I will support 
efforts to help civil society and independent media protect themselves 
from attacks by hostile actors and draconian laws restricting press 
freedoms.

    Question 39. Will you and your Bureau leadership team actively 
engage with civil society and government counterparts on countering 
disinformation and propaganda disseminated by foreign state or non-
state actors in the country?

    Answer. If confirmed, I commit to advance democratic values and 
counter actors attempting to undermine democratic institutions and 
promote authoritarian objectives across sub-Saharan Africa. As 
disinformation and manipulation work best in a monopolized information 
space, I will work with allies and partners to encourage and support 
professional, balanced, and fact-based reporting, and expose and 
counter hostile disinformation campaigns. I am committed to partnering 
with civil society and independent media to help them protect 
themselves from attacks by hostile actors, and I will take proactive 
stands against the arbitrary or unlawful use of surveillance 
technologies by malicious actors.

    Question 40. Will you and your Bureau leadership team actively 
engage with African interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. Ensuring respect for internationally recognized worker 
rights and high labor standards promotes a level playing field for U.S. 
workers and helps create stronger trading partners for the United 
States. Independent trade unions are one of the fundamental building 
blocks for any democratic society and are important partners for the 
State Department in many countries. If confirmed, I will continue to 
support workers' ability to form and join independent trade unions of 
their choice.

    Question 41. The United States has been a loud voice globally in 
the struggle against discrimination, and specifically against 
discrimination towards women and members of the LGBTI community. What 
kind of efforts do you envision undertaking to help move countries to 
uphold their international obligations to protect the rights of all of 
their citizens and oppose discrimination?

    Answer. If confirmed, I am committed to protecting the fundamental 
rights and freedoms of all citizens, particularly historically 
marginalized or persecuted populations. The safety and security of all 
citizens, including LGBTI persons, is of the utmost importance; 
therefore, I will ensure our approach in Africa, first and foremost, 
does no harm. I will encourage our Posts to develop their strategies 
through regular discussions with local LGBTI community and civil 
society partners so that we can avoid sending messages or taking 
actions that might be counter-productive or dangerous to the community. 
I will also raise LGBTI issues in the context of larger human rights 
concerns wherever possible. And finally, I will support and encourage 
the development of local voices in support of LGBTI rights.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Tibor Peter Nagy, Jr. by Senator Marco Rubio

    Ambassador Nagy, as you know, the situation in the Democratic 
Republic of the Congo is increasingly worrisome. We are nearly 18 
months past the end of President Kabila's second and final term in 
office.
    Violence and conflict have displaced more than 5 million people and 
many more face severe food insecurity.
    Elections have been announced for December, but notwithstanding an 
agreement brokered by DRC's Roman Catholic bishops, several leading 
opposition figures, including former Governor Moise Katumbi, have thus 
far been unable to return to the country, due to what many believe are 
trumped-up legal proceedings.

    Question 1. If confirmed, what will you do to support the return of 
free and fair elections?

    Answer. If confirmed, I will continue the administration's pressure 
on the DRC Government to make clear that we expect the DRC to hold 
inclusive and transparent elections in December and that President 
Kabila will not run for re-election, per his commitments made in 
December 2016. To this end, I would plan to continue the 
administration's policy of employing the full range of foreign policy 
tools in support of our objectives. This policy approach includes 
targeted sanctions; international coordination and pressure, including 
with our European and African partners as well as the U.N.; public 
messaging; diplomatic engagement, including senior-level visits; and 
technical assistance to support a transparent and credible process.

    Question 2. If confirmed, would you prioritize nominating an 
Ambassador for the DRC?

    Answer. If confirmed, I am committed to working closely with the 
Secretary and the White House to identify qualified candidates for key 
leadership positions. Pending the appointment and confirmation of a new 
Ambassador, we have a talented, capable, and experienced career 
diplomat in place as Charge d'Affaires. Jennifer Haskell and her team 
have faithfully carried out our policy of pressing the DRC Government 
on the importance of holding credible elections in December 2018 and a 
subsequent peaceful, democratic transfer of power.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Tibor Peter Nagy, Jr. by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of my career in the Foreign Service, I had 
the good fortune to perform work that allowed me to support democracy 
and human rights on a routine basis. Some examples that I find 
particularly notable include the following:

   Cameroon (Deputy Chief of Mission 1990-1993).  When the Cameroon 
        Government, largely in response to domestic instability and 
        pressure from the United States, allowed the first-ever multi-
        party Presidential elections, I led the U.S. Embassy training 
        and monitoring efforts. I managed to obtain permission for the 
        National Democratic Institute's (NDI) delegation to be admitted 
        to the country and to observe the elections, and dispatched 
        Embassy observers to key voting areas. After the governing 
        party claimed victory there was considerable political 
        instability and the Government responded with force. I traveled 
        to the English-speaking part of Cameroon to personally 
        investigate the killing of demonstrators and submitted a report 
        for inclusion in the annual Human Rights report.

   Nigeria (Deputy Chief of Mission 1993-1995). My time coincided with 
        the illegal coup of General Abacha and the imprisonment of 
        Mashood Abiola, the rightful winner of the 1993 elections. I 
        maintained close personal relations with leading human rights 
        figures, including making high profile visits to them after 
        their imprisonment. I was the Embassy's contact with the 
        highest profile ``house arrestee''--General Obasanjo--whom I 
        visited at his farm and served as the conduit for his 
        correspondence with segments of the U.S. Government. Obasanjo 
        subsequently became President of Nigeria.

   Guinea (Ambassador 1996-1999).  The Guinean Government arrested 
        Alpha Conde, the major opposition leader and kept him totally 
        incommunicado under house arrest. I pressed the Government and 
        obtained permission for a group of Western Ambassadors to visit 
        him, and provided him with materials to write, read, and listen 
        to the radio. I also maintained ongoing dialogue with all of 
        the opposition leaders. Alpha Conde subsequently won the 
        presidential elections and is currently Guinea's President.

   Ethiopia (Ambassador 1999-2002).  I opened the Ambassador's 
        residence on an ongoing basis for round table discussions with 
        key opposition leaders, despite the Ethiopian Government's 
        strong disdain for my actions. My residence was the one place 
        they could gather and communicate unhindered and not fear 
        arrest. I also personally investigated reports of the 
        Government killing demonstrators in a remote part of the 
        country.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I will pursue the same policies I did while managing U.S. 
embassies in Africa--which included Americans, local employees, and 
third country nationals of diverse backgrounds. I insisted on equal and 
respectful treatment of everyone; immaterial of local cultural, 
religious, or ethnic practices. I received several awards during my 
Foreign Service Career for my professional and caring management of my 
people, and my mentoring of junior staff. While serving as diplomat-in-
residence at the University of Oklahoma (2002-2003) I made it a 
priority to recruit Native Americans for the State Department from 
throughout the region.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of Near Eastern Affairs are fostering an 
environment that is diverse and inclusive?

    Answer. I will continue my past practice of frequent meetings, 
personal coaching and mentoring sessions to reinforce the precepts of 
equality, fairness, and non-discrimination. I will also take a pro-
active approach to immediately address any problems which arise and 
correct any perceptions of discrimination or a hostile working 
environment--whether in Washington or in the field.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff??

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Tibor Peter Nagy, Jr. by Senator Todd Young

    Question 1. Are you familiar with the National Guard's State 
Partnership Program in which state national guards establish mutually 
beneficial partnerships with foreign militaries? The Indiana National 
Guard established a partnership program with the Republic of Niger in 
January 2017. If confirmed, do you commit to working with me to 
strengthen this relationship?

    Answer. Yes. I am familiar with the National Guard's State 
Partnership Program, and if confirmed, I will work with you to 
reinforce the Indiana National Guard's work in Niger, in close 
coordination with the Department of Defense.

    Question 2. What steps can or should we take to encourage more 
private investment in Africa, particularly in high-risk markets? What 
specific steps should be taken with respect to corruption?

    Answer. If confirmed, I would look at encouraging African countries 
to reduce constraints on investment, strengthen rule of law and work to 
ensure a competitive environment for private investment. Reducing 
corruption would be an integral part of this effort, as it will help to 
mitigate risks that often scare away investors. To help prevent and 
combat corruption, I would also, if confirmed, support measures to 
increase transparency, public accountability, and rule of law.

                               __________


     Responses to Additional Questions for the Record Submitted to 
          Tibor Peter Nagy, Jr. by Senator Christopher Murphy

    Question 1. The United States has increasingly relied on our 
military as the primary mode of engagement with African countries since 
the September 11 attacks. The Obama administration increased military 
spending and deployed more troops to combat terrorism across Africa. 
Under President Trump, the number of U.S. forces in Africa has 
increased by nearly 1,500 to total 7,500. In 2017, U.S. troops were 
deployed to 50 of Africa's 54 countries. Military advisers now 
outnumber diplomats in embassies across Africa:

   As the African continent continues to grow in population and 
        economic importance, do you believe the United States needs to 
        recalibrate the balance between military and non-military 
        engagement with African countries? Do you believe our 
        Ambassadors have sufficient input in, and oversight of, U.S. 
        military assistance offered to host nation governments?

    Answer. I believe there is a link between economic development and 
peace and security within Africa. Without a sustained diplomatic 
engagement and programs emphasizing critical human rights norms, 
democratic processes, and good governance, peace and security in the 
region will remain unattainable. If confirmed, I will work closely with 
my DOD and USAID colleagues to ensure there is a balanced approach to 
policy and resource allocation, and afford our Ambassadors the tools 
necessary to provide sufficient input in, and oversight of, U.S. 
military assistance.

    Question 2. Following the tragic death of four U.S. service members 
in Niger last year and one in Somalia last week, are you concerned that 
U.S. troops are being drawn into harm's way during these supposedly 
non-combat missions? If U.S. troops can reasonably be assumed to 
encounter combat situations, should the administration be required to 
seek additional authorization from Congress?

    Answer. I respect Congress's role in authorizing the use of 
military force and in providing oversight on these issues. I understand 
that the administration is not seeking any new or additional authority 
to use military force.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Tibor Peter Nagy, Jr. by Senator Tim Kaine

    Question 1. I had an amendment that was included in the FY 2017 
NDAA (Section 385) that gave combatant commanders the flexibility to 
help support State and USAID counter violent extremism (CVE) programs 
through shared resources, which would in turn help DOD's mission. Can 
you speak to how you would work with AFRICOM in this position to take 
advantage of this authority and if you would commit to working with 
AFRICOM to ensure strong proposals are sent to address CVE challenges 
in Africa?

    Answer. I understand State, Department of Defense, and USAID are 
coordinating Section 385 proposals this year giving combatant 
commanders the needed flexibility to counter violent extremism in 
Africa. If confirmed, I will ensure that our CVE policy and 
programmatic coordination with the Department of Defense, USAID, and 
others is continuous and comprehensive, and I will commit to working 
with AFRICOM to ensure strong proposals are sent to advance our CVE 
objectives in Africa.
Niger
    Question 2. The number of U.S. special operations forces in Africa 
over the past years has dramatically increased, especially compared to 
our diplomatic presence. I understand that following the attack in 
Niger last October that led the death of four U.S. service members and 
the need to address other strategic threats, these force levels are 
currently under review for reduction. In this position, if confirmed, 
you will be responsible for ensuring that the U.S. Government has the 
appropriate balance between our diplomatic, development and military 
efforts to achieve our foreign policy objectives in Africa. I have 
serious concerns and questions about our``train, advise, assist, and 
accompany'' missions, particularly in Africa, and believe our 
diplomatic efforts should be prioritized in our overall strategy. If 
confirmed, will you report back to me by the end of this calendar year 
to provide your assessment of our diplomatic strategy and whether it is 
appropriately balanced with our military efforts in Africa? Will you 
also commit to informing SFRC on a bi-annual basis, beginning this 
fall, on the status of coordination between the Department of State and 
DOD on decisions regarding military operations, specifically the 
coordination between AFRICOM and our Chief of Mission in Africa? In 
both briefings, will you commit to provide your candid assessment even 
if they are not aligned with DOD?

    Answer. I believe there is a critical link between democracy, human 
rights, and governance and peace and security within Africa. Without a 
sustained diplomatic effort and programs emphasizing critical human 
rights norms, democratic processes, and good governance, peace and 
security in the region will remain unattainable. If confirmed, I will 
work closely with my DOD and USAID colleagues to ensure there is a 
balanced approach to policy and resource allocation, and will provide 
SFRC my candid assessment of the status of interagency coordination in 
Africa. If confirmed, I look forward to maintaining a constructive 
dialogue with you on these issues.
Somalia
    Question 3. Do you agree that the State Department and USAID have 
the appropriate expertise to conduct stabilization operations in the 
post conflict environment of Somalia? Do you agree that a lack of 
embassy or State Department presence, a lack of security and logistics 
capability has inhibited the State Department from conducting stability 
operations in Somalia? Can you provide some examples of where this 
stabilization authority could be useful in helping USAID and State gain 
access to areas in Somalia where security and logistics issues are 
currently preventing them from implementing post-conflict assistance?

    Answer. I am confident that the Department of State and USAID have 
personnel with the requisite talent and expertise available to 
implement stabilization programming within Somalia. I agree that lack 
of presence, security, and logistics are severe impediments to such 
efforts. I believe that Department of Defense assistance would be most 
useful in enabling Department of State and USAID activities in those 
areas of southern and central Somalia that remain contested by al-
Shabaab and other elements opposed to expanding the reach of legitimate 
governance, and where DoD-enabled partner forces from the African Union 
Mission in Somalia and Somali security forces are currently operating.
Fragile States
    Question 4. AFRICOM Commander General Waldhauser stated in his 2017 
testimony to Congress, ``In Africa, weak and ineffective governance is 
the leading cause of state fragility. According to the 2017 Fund for 
Peace `Fragile State Index,' 15 of the 25 most fragile countries in the 
world are in Africa.'' One aspect of addressing fragile states is 
working to improve weak and ineffective governance which is led by 
State and USAID but also include Commerce, Treasury, Justice, the CDC, 
NASA and more. In this position, how would you improve the 
effectiveness of U.S. Government efforts to prevent violent conflict in 
fragile states in Africa? What would a more effective interagency 
approach to conflict prevention in fragile states in Africa look like? 
What changes in interagency goals, coordination structures, funding, 
and authorities will be needed?

    Answer. If confirmed, I am committed to addressing the root causes 
of conflict in sub-Saharan Africa. There is a critical need to address 
democratic deficiencies that contribute to transnational threats. 
States and communities need assistance to foster legitimate, inclusive, 
and transparent political systems that reduce fragility and mitigate 
risks of violent conflict. I believe in an interagency approach to 
foster democratic governance, the rule of law, and respect for human 
rights. Current efforts, such as the Security Governance Initiative, 
rely on expertise from throughout the U.S. Government to strengthen the 
governance and effectiveness of security and justice institutions.
Niger
    Question 5. The number of U.S. special operations forces in Africa 
over the past years has dramatically increased, especially compared to 
our diplomatic presence. I understand that following the attack in 
Niger last October that led the death of four U.S. service members and 
the need to address other strategic threats, these force levels are 
currently under review for reduction. In this position, if confirmed, 
you will be responsible for ensuring that the U.S. Government has the 
appropriate balance between our diplomatic, development and military 
efforts to achieve our foreign policy objectives in Africa. I have 
serious concerns and questions about our``train, advise, assist, and 
accompany'' missions, particularly in Africa, and believe our 
diplomatic efforts should be prioritized in our overall strategy.

   If confirmed, will you report back to me by the end of this 
        calendar year to provide your assessment of our diplomatic 
        strategy and whether it is appropriately balanced with our 
        military efforts in Africa? Will you also commit to informing 
        SFRC on a bi-annual basis, beginning this fall, on the status 
        of coordination between the Department of State and DOD on 
        decisions regarding military operations, specifically the 
        coordination between AFRICOM and our Chief of Missions in 
        Africa? In both briefings, will you commit to provide your 
        candid assessment even if they are not aligned with DOD?

    Answer. I believe there is a critical link between democracy, human 
rights, and governance and peace and security within Africa. Without a 
sustained diplomatic effort and programs emphasizing critical human 
rights norms, democratic processes, and good governance, peace and 
security in the region will remain unattainable. If confirmed, I will 
work closely with my DOD and USAID colleagues to ensure there is a 
balanced approach to policy and resource allocation, and will provide 
SFRC my candid assessment of the status of interagency coordination in 
Africa. If confirmed, I look forward to maintaining a constructive 
dialogue with you on these issues.
Niger (follow-up)
    Question 6. Thank you for your responses, though I would like a 
more direct answer to my question on Niger. Will you meet with me no 
later than December 31, 2018 to provide your assessment of our 
diplomatic strategy in Africa and whether it is appropriately balanced 
with our military efforts? Will you also commit to informing SFRC on a 
bi-annual basis on the status of coordination between the Department of 
State and DOD on decisions regarding military operations, specifically 
the coordination between AFRICOM and our Chief of Missions in Africa?

    Answer. Yes. If confirmed I would be pleased to meet with you 
before the end of end of this calendar year to discuss our diplomatic 
strategy in Africa. Additionally, please know that I understand the 
importance of engaging with Congress and providing information 
regarding State Department efforts across the globe. If confirmed, and 
when asked, my staff and I would be happy to brief Members and staff of 
the Senate Foreign Relations committee regarding the Bureau's work 
across Africa, including the efforts of our Chiefs of Mission and our 
coordination with other agencies.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Tibor Peter Nagy, Jr. by Senator Cory A. Booker

    Question 1. How do you plan to rethink our humanitarian and 
political engagement in South Sudan?

    Answer. I agree that the situation in South Sudan is urgent. If 
confirmed, I will work with interagency and international partners to 
assess U.S. humanitarian and political engagement in South Sudan in 
order to help the South Sudanese people achieve the peace and security 
they deserve.

    Question 2. If confirmed, what steps will you take to reach out to 
the neighboring countries and put pressure on them to put forth a 
regional effort to end the war in South Sudan?

    Answer. Achieving peace in South Sudan will require the assistance 
of South Sudan's neighbors. If confirmed, I will reach out to those 
neighboring countries bilaterally and through multilateral bodies such 
as the Intergovernmental Authority on Development (IGAD) and the 
African Union (AU) to urge them to help end the conflict by pressuring 
the warring parties, cutting off the flow of arms and ammunition, and 
stopping illicit financial flows from South Sudan to neighboring 
countries.

    Question 3. The U.S. has advocated for sanctions and an arms 
embargo at the U.N. Security Council. If the Security Council does not 
back this call, what should the U.S. do next?

    Answer. I believe the United States should continue pushing for 
sanctions and an arms embargo at the U.N. Security Council as 
appropriate. If the Security Council does not back the U.S. position, 
the United States has an array of authorities that can be used to apply 
domestic sanctions. If confirmed, I will also engage with international 
and regional partners to enact similar measures.

    Question 4. Do you believe AFRICOM's role in Niger is helping us to 
meet our development goals in the Sahel?

    Answer. I believe that security is a necessary condition for 
development but not sufficient alone to bring it about. AFRICOM's work 
and U.S. Government support of over $250 million in security force 
assistance to Niger since 2012 has been critical to maintaining 
security for a country facing terrorist threats on three of its borders 
with a relatively small and overstretched military of 15,000. These 
threats continue to spill over from neighboring Mali and Nigeria. There 
are 129,500 internally displaced Nigeriens and the country is host to 
some 167,000 refugees from neighboring Mali and Nigeria. These trends 
further add to political instability and create unique development 
challenges, making it increasingly difficult for development assistance 
implementers to work safely in the field. So long as Niger is 
vulnerable to debilitating attacks from terrorist threats, development 
efforts will face significant challenges. U.S. security assistance 
through AFRICOM helps meet these important challenges by seeking to 
improve Niger's ability to defend itself against threats from violent 
extremist organizations both within and outside its borders. If 
confirmed, I would look to continue this important cooperation and look 
for greater opportunities to bring development and governance 
assistance into newly secured areas.

    Question 5. Do you believe that AFRICOM is effectively coordinated 
with the State Department and USAID?

    Answer. While I would need to be confirmed and in the job before I 
can completely determine this, I understand that there is good 
coordination between AFRICOM and the State Department and USAID. At the 
policy level, discussions among the leaders of the three organizations 
set common policy that drives diplomatic engagement as well as 
development and security sector engagement. The AFRICOM Commander, 
Assistant Secretary for African Affairs, and USAID Assistant 
Administrator for African Affairs hold a yearly African Strategic 
Dialogue (ASD) to establish common goals and direction for their 
organizations. Beyond this, I understand that there are regular 
conversations between the Bureau leadership and AFRICOM to ensure 
consistency in strategic direction and messaging. At the country team 
level, where programs are enacted, I understand that strong 
relationships among the chiefs of mission, the USAID country directors, 
and the senior defense officials exist. Finally, my understanding is 
that each of these entities exchanges advisors to provide policy and 
technical advice.

    Question 6. If confirmed, how do you plan to ensure that our 
military operations in the Sahel are coordinated with State Department 
and USAID?

    Answer. I share your belief that diplomacy and development are 
essential components of a successful and sustainable strategy in the 
Sahel and that we must coordinate closely with our Defense Department 
counterparts. Chiefs of Mission, their staff, and AFRICOM routinely 
engage as required by Presidential directive and U.S. law with regard 
to AFRICOM activities. In support of our Chiefs of Mission, the State 
Department coordinates closely with the Department of Defense and 
participates in the interagency process to determine regional strategic 
priorities in the Sahel. If confirmed, I will ensure that our 
coordination with the Department of Defense is continuous and 
comprehensive, and I will pursue the resources necessary to advance our 
development and governance objectives in the Sahel.

    Question 7. How will you make sure that President Kabila 
understands that he cannot run for a third term, and that the elections 
should happen before the end of the year?

    Answer. If confirmed, I will continue the administration's pressure 
on the DRC Government, including President Kabila, to make clear that 
we expect the DRC to hold elections in December and for President 
Kabila to abide by his commitment to refrain from running or changing 
the constitution. To this end, I would expect to employ the full range 
of foreign policy tools in support of our objectives. This approach 
includes targeted sanctions; international coordination and pressure, 
including with our European and African partners as well as the U.N.; 
public messaging; diplomatic engagement, including senior-level visits; 
and, technical assistance to support a transparent and credible 
process.

    Question 8. Would you be in favor of sanctions on Kabila's family 
in the event he runs again or delays elections further?

    Answer. If confirmed, I will continue the administration's pressure 
on the DRC Government, including President Kabila, to make clear that 
we expect the DRC to hold elections in December and for President 
Kabila to abide by his commitment to refrain from running or changing 
the constitution. This would include consideration of further use of 
our sanctions authorities, as appropriate, both to press President 
Kabila to hold credible elections, as now scheduled for December 2018, 
and to step down from power as mandated by the DRC's constitution, as 
well as in response to steps that undermine a credible electoral 
process or respect for fundamental rights. To this end, if confirmed, I 
will work closely with the Department of the Treasury on possible 
further DRC sanctions designations.

    Question 9. If confirmed, will you urge President Trump and 
Secretary Pompeo to appoint an Ambassador to DRC so that we have a 
confirmed Ambassador in place prior to the planned December elections?

    Answer. Regarding the status of specific Presidential appointments, 
I would defer to the White House. If confirmed, I am committed to 
working closely with the Secretary and the White House to identify 
qualified candidates for key leadership positions. Pending the 
appointment and confirmation of a new Ambassador, we have a talented, 
capable, and experienced career diplomat in place as Charge d'Affaires. 
Jennifer Haskell and her team have repeatedly pressed the DRC 
Government on the importance of holding credible elections in December 
2018 and a subsequent peaceful, democratic transfer of power.

    Question 10. How has the Gulf dispute affected the stability of the 
Horn of Africa?

    Answer. The Gulf crisis has intensified competition between the 
Gulf States across the Horn, whether on political, commercial, or 
security issues.
    In the case of Somalia, Gulf States have pressured the Federal 
Government of Somalia to take sides in the dispute. Some Gulf countries 
have also engaged directly with Somalia's Federal Member States on 
political and economic issues in a manner that has exacerbated tension 
between federal and regional authorities. This tension has distracted 
the Somali authorities significantly from efforts to advance the 
federalism process and make progress on security sector reform. 
Somalia's long-term stability depends heavily on Mogadishu and its 
Federal Member States reaching agreement on an appropriate delineation 
of authorities between national and regional levels.

    Question 11. If confirmed, how will you tackle this issue?

    Answer. If confirmed, I will work with my counterparts in the 
Bureau of Near Eastern Affairs and our Embassies in the region to 
emphasize to relevant Gulf partners that pressuring countries in the 
horn of Africa to take sides in the Gulf dispute runs counter to our 
shared goals of promoting peace and stability in the region. In 
Somalia, I will discourage partners from engaging with Somalia's 
Federal Member States in a manner that undermines Somali national unity 
and distracts from stabilization and reform efforts. These include 
efforts to combat al-Shabaab and promote progress on federalism and 
reconciliation between Mogadishu and its Federal Member States.

                               __________


     Responses to Additional Questions for the Record Submitted to 
               David Schenker by Senator Robert Menendez

    In a June 10, 2018 article in the Wall Street Journal titled ``U.S. 
Pushes to Avert `Catastrophic' U.A.E. Attack on Yemen Port,'' an 
unnamed U.S. official characterized the administration as giving the 
U.A.E. a ``blinking yellow light'' for the operation. In a June 11, 
2018 Press Statement, Secretary Pompeo said ``I have spoken with 
Emirati leaders and made clear our desire to address their security 
concerns while preserving the free flow of humanitarian aid and life-
saving commercial imports.''
    Question 1. Did any Senate-confirmed individual in the U.S. 
Government explicitly communicate U.S. opposition to military 
operations at the Hudaydah Port?

    Answer. I understand that the administration supports a political 
settlement negotiated through U.N. mediation, not a military solution, 
to resolve the conflict and to ensure the critical goal of continued 
humanitarian access.

    Question 2. What did the U.S. specifically offer to address Emirati 
security concerns in Hudaydah in order to dissuade the current military 
operations?

    Answer. Acting Assistant Secretary David Satterfield has publicly 
testified that the United States has been consistently clear with 
Saudi, Emirati, and Yemeni officials at every level that the 
destruction of critical infrastructure or disruption of the delivery of 
vital humanitarian aid and commercial goods is unacceptable. I 
understand that the administration supports a political settlement 
negotiated through U.N. mediation, not a military solution, to resolve 
the conflict and to ensure the critical goal of continued humanitarian 
access.

    Question 3. What is the U.S. recommendation for ``preserving the 
free flow of humanitarian and commercial imports'' at the port, and is 
the U.S. recommendation shared by the U.N. Special Envoy for Yemen?

    Answer. The United Nations has said the port of Hudaydah receives 
as much as 70 percent of the imports arriving in Yemen. I understand 
the administration continues to stress, at the highest levels, to the 
United States' foreign partners and Coalition leadership the need to 
avoid any action that disrupts the flow of humanitarian assistance and 
commercial goods through Hudaydah port. In his June 13 statement, the 
U.N. Special Envoy to Yemen Martin Griffiths expressed concerns about 
the serious consequences a military conflict in Hudaydah could have on 
the dire humanitarian situation in Yemen--asking the parties to 
constructively engage with his office. The Department of State has said 
it supports the efforts of the U.N. Special Envoy and believes that the 
conflict can only be resolved through a comprehensive political 
agreement. In the Secretary of State's statement on June 11, he called 
on the parties to honor their commitments to the U.N. Special Envoy, 
support the political process, and ensure access for humanitarian aid 
and critical commercial goods.

    Question 4. In a June 10, 2018 article in the Wall Street Journal 
titled ``U.S. Pushes to Avert `Catastrophic' U.A.E. Attack on Yemen 
Port,' an unnamed U.S. official characterized the administration as 
giving the U.A.E. a ``blinking yellow light'' for the operation. In a 
June 11, 2018 Press Statement, Secretary Pompeo said ``I have spoken 
with Emirati leaders and made clear our desire to address their 
security concerns while preserving the free flow of humanitarian aid 
and life-saving commercial imports.'' Is there a ``red line'' for the 
Emirati operations at Hodaydah, which if crossed would result in 
cessation of U.S. military support?

    Answer. The administration has stated that it continues to provide 
limited support to the Coalition in support of the Republic of Yemen 
Government and that the support includes efforts to improve Coalition 
process and procedures, including regarding compliance with the law of 
armed conflict and best practices for reducing the risk of civilian 
casualties. Acting Assistant Secretary David Satterfield has publicly 
testified that the United States has been consistently clear with 
Saudi, Emirati, and Yemeni officials, at every level, that destruction 
of critical infrastructure or disruption of the delivery of vital 
humanitarian aid and commercial goods is unacceptable. I understand 
that the administration supports a political settlement negotiated 
through U.N. mediation, not a military solution, to resolve the 
conflict and to ensure the critical goal of continued humanitarian 
access.

    Question 5. In Secretary Pompeo's April 12, 2018 responses to my 
Questions for the Record, he stated that if confirmed he would urge the 
UAE Government to conduct a thorough investigation of its detainee 
practices, to include allowing the International committee of the Red 
Cross to have regular access to the centers.

   Can you now confirm that the State Department has indeed urged the 
        UAE Government to conduct such an investigation?

    Answer. I cannot speak to the commitments the Secretary made 
previously. However, if confirmed, I will work to follow through on the 
Secretary's commitments and engagement with the Emirati Government.

    Question 6. If not Secretary Pompeo, has any official representing 
the U.S. Government engaged in such a discussion with any official of 
the UAE Government?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on these important 
issues.

    Question 7. Has the Statement Department, or any other agency of 
the U.S. Government, conducted an assessment regarding the allegations 
of fraud in the May 12, 2018 national elections in Iraq?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on this issue in 
greater detail.

    Question 8. If the U.S. Government has not conducted such an 
assessment regarding the credibility of these allegations, is the State 
Department aware of any other government or non-government effort?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on this issue in 
greater detail.

    Question 9. Is U.S. policy to (a) support continued negotiations by 
Iraq's political parties to form a government or (b) support a pause in 
government formation negotiations in order to assess the credibility, 
fairness, and security of Iraq's elections?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on this issue in 
greater detail.

    Question 10. What are the risks if the majority of Iraqi citizens 
believe that the allegations of electoral fraud are credible?

    Answer. If a state fails to reassure its citizens that their votes 
count, it diminishes the legitimacy of the electoral process, weakens 
the credibility of democracy, and runs the risk of instability or 
social unrest. Iraq is particularly susceptible to these issues due to 
its history of sectarianism and the recent widespread violence 
associated with the fight against ISIS. All governments need to 
reassure their citizens that they are taking actions to protect the 
rule of law. The Iraqi Government has done this by demanding a recount 
of ballots from the May 12 election, to help ensure the credibility of 
its democratic institutions.

    Question 11. Please provide specific examples of non-military 
programs and activities that the U.S. Government is currently 
implementing in Iraq that, directly or indirectly, counter-balance 
Iranian influence. What additional programs or engagement might 
contribute to these efforts?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on this issue in 
greater detail.

    Question 12. In our private meeting, you expressed support for some 
of UNRWA's work but also said the agency needed to reform. Please 
provide 3-5 specific examples of reform efforts that the U.S. should be 
seeking from UNRWA in order for to continue our funding?

    Answer. It is my understanding that U.S. assistance to the 
Palestinians, including the United Nations Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA), remains under review by 
the administration. I know that the United States has long voiced the 
need for UNRWA both to seek out new voluntary funding streams and 
increase burden-sharing among its donors, as well as to undertake more 
fundamental reforms. I agree that the United States should not be asked 
to bear a disproportionate share of UNRWA's costs. If confirmed, I 
would be pleased to engage with you in greater detail on this important 
issue.

    Question 13. In which areas of Syria has the State Department 
started a drawdown of stabilization assistance?

    Answer. It is my understanding that the administration has decided 
to transition over the coming months certain U.S. assistance efforts 
from northwest Syria to enhance stabilization assistance in areas 
liberated from ISIS in northeast Syria.

    Question 14. What specific programs and activities is the State 
Department no longer funding in these areas of Syria?

    Answer. I understand that the President has asked that all 
stabilization assistance for Syria be reviewed in order to determine 
appropriate assistance needs.

    Question 15. Does this drawdown include funding for support to the 
White Helmets?

    Answer. It is my understanding that the President authorized USAID 
to release approximately $6.25 million for the continuation of life-
saving operations of the Syrian Civil Defense, more commonly known as 
the ``White Helmets''--an internationally renowned non-governmental 
organization composed of over 3,000 volunteer first-responders. These 
funds will provide the White Helmets with critical equipment, vehicles, 
and other assistance needed to continue their work to save lives.

    Question 16. Please describe the process for transitioning these 
programs to other donors. What are the risks to the people and 
communities in these areas if other donors do not assume the funding 
responsibility?

    Answer. Acting Assistant Secretary Satterfield testified that the 
United States is working with Coalition partners to encourage greater 
investment in immediate stabilization and early recovery efforts in 
areas liberated from ISIS control, including investment in removal of 
Explosive Remnants of War (ERW), the restoration of essential services, 
and the building local capacity to support longer-term sustainability 
to secure enduring liberation from ISIS.

    Question 17. The de-escalation zone in southwest Syria, negotiated 
by Jordan, Russia and the United States, depend on Russian assurances. 
In a June 14, 2018 Press Statement, Heather Nauert said that the United 
States ``will take firm and appropriate measures in response to Syrian 
Government violations in this area.'' Please provide examples of ``firm 
and appropriate'' responses.

    Answer. My understanding is that the administration is demanding 
that Russia fulfill its commitments to restrain the Syrian regime from 
committing any violations in the southwest de-escalation zone.

    Question 18. For each country in the NEA Bureau over the past five 
calendar years, has the U.S. been unable to provide assistance to a 
particular unit due to Leahy vetting requirements?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on this in further 
detail.

    Question 19. For each example, please provide details on the unit, 
why they were denied assistance, when assistance was resumed and the 
reasoning for that resumption.

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter. If confirmed, I 
look forward to engaging with you and your staff on this in further 
detail.

    Question 20. Can Bahrain be a stable, secure country in the medium 
to long term absent credible steps toward reconciliation and reform?

    Answer. Credible steps toward reconciliation and reform will be an 
important factor in Bahrain's medium-to-long term stability and 
security. Just as critical will be Bahrain's ability to defend itself 
against Iranian interference and aggression. While that security threat 
is real, it should not be an excuse to restrict human and political 
rights. Bahrain also should continue to pursue economic reforms in the 
face of fiscal and economic challenges. If confirmed, I will work with 
the Bahraini Government to help in these areas that are key to 
Bahrain's long-term stability and security.

    Question 21. Do you personally believe that U.S. engagement with 
the Bahraini Government regarding its commitments to reconciliation and 
reform can help to move these processes forward?

    Answer. Honest, consistent, and regular U.S. engagement with the 
Bahraini Government will be critical in promoting reconciliation and 
reform. If confirmed, I will work with Department of State and U.S. 
Government counterparts to promote such engagement with the Bahraini 
Government.

    Question 22. In July 2017, Qatar signed a Memorandum of 
Understanding (MOU) on counterterrorism cooperation with the U.S. Has 
Qatari commitment to fulfilling its obligations in this MOU been 
satisfactory to date?

    Answer. I understand that Qatar has worked diligently to improve 
its information sharing with the United States, and its capacity to 
identify, investigate, designate, and prosecute terrorists. If 
confirmed, I am committed to ensuring that you continue to receive 
comprehensive briefings on Qatar's implementation of the 
counterterrorism MOU.

    Question 23. What are the current priorities of administration in 
advancing U.S.-Qatar counterterror cooperation?

    Answer. I understand that the administration is working with Qatar 
to improve its capacity in the two key areas of terrorist finance 
designations and prosecutions. On designations, Qatar is drafting new 
laws in order to be compliant with internationally recognized standards 
and has recently issued terrorism designations. On prosecutions, Qatar 
is working closely with the U.S. Department of Justice on technical 
training and case-based mentoring.

    Question 24. For each of the Governments involved in the Qatar 
dispute, what specific recommendations have been made to take steps 
toward ending the dispute with Qatar?

    Answer. All countries involved in the dispute can reduce negative 
and provocative public rhetoric, use their public messaging to create 
the conditions for a productive dialogue, and begin good-faith 
negotiations to de-escalate and eventually resolve the dispute. Each of 
these countries is an important U.S. partner with an essential role to 
play in countering Iran's malign activity in the region and combating 
terrorism and violent extremist ideologies. If confirmed, I would 
recommend the parties in the dispute focus on these important 
priorities and the progress they can make if they resolve their 
differences and work together.

    Question 25. Are these governments open to taking steps toward 
reconciliation?

    Answer. I understand that the dispute remains in a stalemate. If 
confirmed, I will work with the countries involved and emphasize the 
importance of reconciliation.

    Question 26. Please provide specific examples of how the ongoing 
dispute with Qatar undermines U.S. national security interests in the 
Middle East.

    Answer. The dispute prevents some of the United States' most 
important allies in the region from cooperating to confront Iran. As a 
result of the dispute, Qatar's only open border is its maritime border 
with Iran, which leaves Qatar increasingly vulnerable to Iranian 
pressure at a time when the United States seeks a unified front against 
Iranian aggression. In addition, the dispute has degraded the GCC as an 
institution, hindered U.S efforts to strengthen regional defense 
cooperation, and resulted in provocative rhetoric that is deepening 
resentment between governments and populations.

    Question 27. What are the major challenges to implementing the 
agreement reached in Paris in May by certain Libyan leaders and 
stakeholders to hold elections in December?

    Answer. The United States supports U.N.-facilitated Libyan efforts 
to organize credible and secure parliamentary and presidential 
elections as soon as possible. The administration has said these 
elections must be well-prepared, so we do not end up with further 
instability. As I understand it, much work remains to be done to ensure 
broad-based support across Libya for an agreed to constitutional and 
electoral process. The United States supports U.N. Special 
Representative Salame's ongoing efforts to consult widely with Libya's 
leaders on how to move forward with a democratic and inclusive process 
and lay the necessary groundwork for successful elections to proceed.

    Question 28. In your view, should the United States push for 
elections on this timeline?

    Answer. The administration has made clear that the United States 
fully supports U.N. Special Representative of the Secretary-General for 
Libya Ghassan Salame's efforts to help Libyans organize credible, 
secure, and well-prepared parliamentary and presidential elections as 
soon as possible. Credible and peaceful elections will provide the 
basis for a more stable and representative government, which will help 
address Libya's economic and humanitarian challenges. The 
administration has underscored that such elections must be well 
prepared, to avoid further instability. Special Representative Salame 
must have the opportunity to consult with Libya's leaders on how to 
move forward with a democratic and inclusive process.

    Question 29. Should the United States withhold funding to support 
Libya elections until a constitutional referendum is held?

    Answer. I understand that the United Nations is consulting with the 
Libyans on the sequencing of their constitutional and electoral 
processes. It is also my understanding that the United States supports 
the United Nations' leadership of the Libyan political process and the 
goal of helping Libyans organize credible, secure, and well-prepared 
national elections. The political process must lead to a more stable, 
unified national government, but first the Libyans must lay the 
groundwork for elections to proceed, with support from the 
international community.
    In the interim, I believe that we should continue to bolster 
Libya's electoral institutions and maintain flexibility in U.S. 
bilateral assistance in order to adjust programs according to progress 
on the political front.

    Question 30. Is the U.S. Government aware of any credible evidence 
to supports the allegations against UNHCR?

    Answer. I defer to the Department of State, which I understand 
stands ready to brief you or your staff, on this issue. However, to my 
knowledge, there is no credible evidence to support Lebanese Foreign 
Minister Gebran Bassil's allegations against the UNHCR. Much of Syria 
remains in conflict and insecure and at present the United Nations does 
not consider conditions to be suitable for mass returns.

    Question 31. Do you believe that UNHCR's work in Lebanon should 
continue?

    Answer. Lebanon hosts the highest per capita number of refugees in 
the world and the second highest number of Syrian refugees. The influx 
of refugees from Syria has presented significant challenges to 
Lebanon's public services and social cohesion, and UNHCR has a crucial 
role to play in providing humanitarian aid to meet the life-saving 
needs of Syrian refugees.

    Question 32. What are the conditions necessary for returns to 
Syria? In your view, are there areas in Syria safe enough for returns?

    Answer. Much of Syria remains in conflict and insecure. At present, 
the United Nations does not consider conditions to be suitable for mass 
returns. The United States should continue assistance to Syrian 
refugees until Syrians can return voluntarily in safety and dignity.

    Question 33. Have new letters of instruction been issued to the 
Ambassador to Israel and the Consul General in Jerusalem?

    Answer. I am not aware of the status of Presidential letters of 
instruction to the U.S. Ambassador to Israel and the U.S. Consul 
General in Jerusalem. If confirmed, I would be happy to provide an 
update on this issue.

    Question 34. What are the differences between these letters of 
instruction and the previous letters of instruction?

    Answer. I am not aware of the status of Presidential letters of 
instruction to the U.S. Ambassador to Israel and the U.S. Consul 
General in Jerusalem. If confirmed, I would be happy to provide an 
update on this issue.

    Question 35. If confirmed, will you make ensuring Israel's QME is 
maintained a constant priority?

    Answer. The United States has a long-standing commitment to 
Israel's security, one important component of which is substantial 
security assistance to preserve Israel's QME over potential regional 
threats. I look forward to consulting closely with Congress to continue 
the U.S. legacy of unwavering security commitment toward Israel.

    Question 36. What type of U.S. assistance does the administration 
consider to not directly benefit the PA for the purposes of the Taylor 
Force Act?

    Answer. The administration has stated that it strongly supports the 
Taylor Force Act. I believe implementation of the Act will take place 
in the context of a broader review of assistance to the Palestinians. 
If confirmed, I look forward to briefing Congress on the conclusions of 
that review when it is complete.

    Question 37. Please describe the input provided by the State 
Department to the Department of Homeland Security.

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter.

    Question 38. How do you plan to continue raising these cases?

    Answer. I know that the safety and security of U.S. citizens is a 
top priority for the Trump administration. If confirmed, I plan to use 
all the diplomatic tools at my disposal to work for the release of U.S. 
citizens unjustly detained or missing in Iran and reunite them with 
their families. This includes working with the Swiss Government, our 
protecting power in Iran, advocacy within the United Nations, and 
coordination with other western nations that have unjustly detained 
citizens in Iran.

    Question 39. What more do you propose that we ask of our partners 
in the Middle East in order to get the Iranians to fundamentally change 
their behavior?

    Answer. Based on the Secretary's May 21 speech, I understand that 
the administration is seeking to build a global coalition of states 
that will join us in isolating the Iranian regime diplomatically and 
politically, while also applying an unprecedented level of financial 
sanctions. If confirmed, I look forward to working with countries in 
the Middle East to further contribute to these efforts.

    Question 40. Please provide a list of weapons purchases that, if 
consummated by any government in the NEA Bureau with Russia, would 
constitute a ``significant transaction'' under Section 231.

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter.

    Question 41. For each of these possible acquisitions, has the State 
Department taken action to discourage consummation of the sale?

    Answer. I must defer to the Department of State, which I understand 
stands ready to brief you or your staff on this matter.

    Question 42. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Since 1998, I have written dozens of scholarly articles 
recommending how U.S. policymakers should support human rights and 
democracy promotion in the Middle East. In 2000, the Washington 
Institute for Near East Policy published a book I wrote titled 
``Palestinian Democracy and Governance: An Appraisal of the Legislative 
Council.'' It remains the only book in English about the Palestinian 
legislature. In this book, I described US-funded efforts to strengthen 
good governance in the Palestinian Authority, and argued for increased 
U.S. support for institution-building in the PA. I have also testified 
before the European Union Parliament about religious freedom in Egypt. 
I believe my work has raised awareness about human rights and democracy 
in the Arab world among U.S. policymakers.

    Question 43. What issues are the most pressing challenges to 
democracy or democratic development in your region, in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. The Middle East and North Africa region faces several 
pressing challenges to democracy and democratic development. Many 
countries lack adequate civic opportunity for all sectors of society, 
particularly minority and opposition groups, to operate. Corruption 
saps regional economies and provides an avenue for actors to bypass and 
undermine political structures and the rule of law. The jailing and 
sidelining of legitimate opposition figures prevents meaningful 
elections and suppresses the voice and will of the people. The region 
lacks legitimate and independent news sources and credible 
international news services where bad actions and misdeeds are honestly 
reported.

    Question 44. What steps will you take--if confirmed--to support 
democracy in your region? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will do my utmost to support democracy in 
the Middle East and North Africa. Strengthening democratic institutions 
and processes are core tenants of American values, and support for an 
engaged civil society is a critical component of strengthening 
democracy in the Middle East. Impediments to democratization are 
present to varying degrees across the region, including a lack of civic 
space for opposition and minority groups to operate, corruption, and 
instability caused by ongoing conflict.

    Question 45. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I plan to leverage U.S. foreign assistance, 
along with other tools available to the U.S. Government, to advance our 
foreign policy goals ?and national security interests, including 
through support for democracy and governance. I will continue to ensure 
that U.S. foreign assistance resources and programs support civil 
society organizations, promote inclusive participatory governance, and 
further respect for human rights.

    Question 46. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Washington and in your region? What steps will you take to 
pro-actively address efforts to restrict or penalize NGOs and civil 
society via legal or regulatory measures?

    Answer. If confirmed, I would meet with civil society members, 
human rights advocates, and other non-governmental organizations in the 
United States and in the Middle East and North Africa.

    Question 47. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I will meet with democratically oriented 
political opposition figures and parties. I also will advocate for 
access and inclusivity for women, minorities, and youth within 
political parties and civil society.

    Question 48. Will you and your Bureau leadership team actively 
engage with regional leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in your region?

    Answer. If confirmed, the Bureau of Near Eastern Affairs leadership 
team and I will actively engage with regional leaders on freedom of the 
press and address any government efforts designed to control or 
undermine press freedom through legal, regulatory, or other measures. I 
also will commit to meeting regularly with independent, local press in 
the Middle East and North Africa region.

    Question 49. Will you and your Bureau leadership team actively 
engage with civil society and government counterparts on countering 
disinformation and propaganda disseminated by foreign state or non-
state actors in the region?

    Answer. If confirmed, I would actively engage with civil society 
and government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the Middle East 
and North Africa.

    Question 50. Will you and your Bureau leadership team actively 
engage with regional interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. If confirmed, the Bureau of Near Eastern Affairs leadership 
team and I will actively engage with interlocutors across the Middle 
East and North Africa on the right of labor groups to organize, 
including independent trade unions.

    Question 51. The United States has been a loud voice globally in 
the struggle against discrimination, and specifically against 
discrimination towards women and members of the LGBTI community. What 
kind of efforts do you envision undertaking to help move countries to 
uphold their international obligations to protect the rights of all of 
their citizens and oppose discrimination?

    Answer. If confirmed, I will advocate against discrimination toward 
women and members of the LGBTI community across the Middle East and 
North Africa.

    Question 52. A defense company owned by Elliot Broidy, Circinus, is 
currently implementing a large contract on behalf of the Government of 
the United Arab Emirates. Mr. Broidy has also reportedly pursued large 
contracts with other countries in the Middle East, while allegedly 
attempting to influence U.S. foreign policy to the benefit of the 
Governments from which he was pursuing business deals. These 
allegations have a potentially grave impact on matters that fall within 
the jurisdiction of the Senate Foreign Relations committee.

   If the committee requests information from your Bureau on these and 
        related matters, do you commit to provide the information in a 
        timely and responsive way?
    Answer. Yes, I will coordinate with the Bureau of Legislative 
Affairs to respond in as timely and responsive manner as possible.


                follow-up questions submitted to david 
                  schenker by senator robert menendez
    Question 1. In your view, what are the greatest threats facing the 
United States in Yemen? Is Al Qaeda in the Arabian Peninsula (AQAP) 
still a threat? Should we continue to refuel partner aircraft if our 
partners in Yemen are no longer partnering with us to counter AQAP?

    Answer. Developments in Yemen threaten U.S. interests on several 
fronts. First, the vacuum caused by the war in Yemen has seen a 
resurgence of AQAP in ungoverned spaces, which could enable the 
organization to conduct operational planning against American citizens 
and interests in and outside of CONUS. Second, the IRGC has manipulated 
the security vacuum in Yemen to expand Iranian regional influence via 
the Houthis. Iran's presence on Saudi Arabia's southern border 
constitutes a significant threat to an important U.S. ally. More than 
10,000 American citizens reside in Saudi Arabia, which is currently 
under missile attack by the Iranian-backed Houthis. Third, the acute 
humanitarian crisis in Yemen could result in an outflow of refugees, 
destabilizing neighboring states. It is my understanding that at 
present, a small number of U.S. forces, in coordination with the 
Republic of Yemen Government, and the UAE, support ongoing kinetic 
operations to degrade AQAP's ability to coordinate external terrorist 
operations. Given this cooperation and the abiding interest of the U.S. 
in preventing the establishment of a permanent IRGC presence in Yemen, 
continued U.S. support for its regional partners is warranted. If 
confirmed, I will ensure that our counterterrorism partnerships across 
the region remain strong.
Yemen
    Question 2. You responded to my question regarding ICRC access to 
detention facilities by pledging to follow through on Secretary 
Pompeo's commitments and engaging with the UAE Government on its 
detention practices.

   Did you read the June 21, 2018 article published by the Associated 
        Press titled ``Detainees held without charges decry Emiratis' 
        sexual abuses''?

    Answer. Yes.

    Question 3. Based on the evidence reported in this article, do you 
believe it should be the policy of the U.S. to urge that the ICRC be 
granted access to detention centers in Yemen?

    Answer. I understand that the administration has raised concerns 
about these allegations with UAE Government and military officials. If 
confirmed, I would seek to better understand the situation and if 
appropriate, advocate for ICRC access to these facilities, per the 
Geneva Convention.

    Question 4. Would it be appropriate for the Intelligence Community 
to conduct an assessment of the credibility of these reports?

    Answer. I am not in a position to say. A Pentagon spokesman in the 
article said that DOD had ``no substantiating information'' about the 
reports, but nonetheless described the allegations as ``disturbing.'' I 
agree that the allegations are indeed disturbing. If confirmed, I would 
seek further information regarding the credibility of these 
allegations, and make recommendations on future actions based on my 
findings.

    Question 5. In your view, are non-military programs and activities 
in Iraq helpful in counter-balancing Iranian influence in Iraq? As a 
long-time scholar of the region, can you provide examples of U.S. 
assistance or engagement that, in your view, play a beneficial role in 
countering Iranian influence in Iraq?

    Answer. U.S. initiatives to counter Iran include a variety of 
activities, just as malign Iranian influence in Iraq manifests in many 
forms. As an observer outside of government, I have seen how U.S. 
diplomacy has promoted Iraqi sovereignty, helped Iraq integrate in the 
region, and built stronger connections between Iraq and western 
institutions and principles. Thanks to U.S. Government support, for 
example, Iraq signed a $5.4 billion Stand-by-Arrangement with the IMF 
that tied Baghdad closer to western financial institutions and put it 
on a much-needed path to economic reform. Likewise, U.S. Government 
support for the Iraq Reconstruction Conference hosted by Kuwait earlier 
this year led to nearly $30 billion in financing assistance from 
international donors, institutions, and the private sector for Iraq's 
reconstruction efforts, making Iraq less susceptible to Iranian 
economic influence.
    I believe that U.S. support has helped heal Iraqi communities 
devastated by terrorism and war, limiting some opportunities Tehran 
might otherwise exploit. U.S. Government support for stabilization, for 
instance, has brought basic services to communities destroyed by ISIS 
and allowed more than 3.8 million internally displaced Iraqis, mostly 
minorities, return to their homes. The United States has backed local 
reconciliation activities, as well as decentralization programming to 
bring decision-making authority closer to local communities. I believe 
that these efforts are helping to build a stronger, more resilient 
Iraqi society, which stands a better chance of resisting Iranian 
interference.
    While helpful, this U.S. assistance is by no means a panacea. 
Iranian influence runs deep in many quarters in Iraq. Proximity, 
religious affinity, and its willingness to use coercion, give Tehran 
some advantage in this struggle for the development of an independent 
and democratic Iraq. Absent this engagement, however, the U.S. would 
essentially be ceding the field to Iran, an approach that would be both 
defeatist, and, I believe, a disservice to most Iraqis to want to chart 
their own destiny.
Syria
    Question 6. You stated, ``Much of Syria remains in conflict and 
insecure and at present the United Nations does not consider conditions 
to be suitable for mass returns.''

   I want to understand YOUR view on the conditions in Syria and the 
        suitability for mass returns; please provide them.

    Answer. It is my view that the vast majority of Syrian refugees 
fled from the Assad regime--not ISIS. To wit, as a matter of policy, 
ISIS prevented its residents from escaping, routinely killing them for 
trying. From my vantage point outside of government, I assess that 
Syria today is not yet suitable for the mass return of refugees. 
Returns should take place under conditions where refugees can be safe 
and can make an informed and voluntary choice about their return. Syria 
remains highly volatile with fighting and violence across the country 
and widespread unexploded ordinance. Basic services are currently very 
limited or non-existent in many potential areas of return and 
humanitarian access remains a challenge. Moreover, refugees have no 
guarantees that they will not be punished or retaliated against for 
fleeing the war. The refugees were not an ancillary element of this 
war; it is my assessment as an analyst that the Assad regime wanted to 
depopulate the country of Sunni Muslims to change the demography of 
Syria. It is unclear if the regime would even allow their return to a 
situation free from extreme religious bias and persecution. .

    Question 7. In your view, can U.S. funding for stabilization 
activities play a beneficial role in improving those conditions?

    Answer. It is my understanding that U.S. stabilization assistance 
plays a critical role in removing explosive remnants of war and 
rehabilitating essential services to pave the way for the safe and 
voluntary return of Syrians to liberated communities and begin to re-
introduce a sense of normalcy to these communities. Stabilizing 
communities--improving local governance, mitigating retributive 
violence, and ensuring equitable representation of marginalized 
groups--eliminates some of the key factors that ISIS can and has 
exploited to re-emerge in liberated communities currently outside of 
regime control. If confirmed, I would be happy to provide additional 
details on U.S.-funded stabilization activities and how they improve 
conditions on the ground for Syrians.

    Question 8. You said, ``Based on the Secretary's May 21 speech, I 
understand that the administration is seeking to build a global 
coalition of states that will join us in isolating the Iranian regime 
diplomatically and politically, while also applying an unprecedented 
level of financial sanctions. If confirmed, I look forward to working 
with countries in the Middle East to further contribute to these 
efforts.''

   I would like YOUR views, as a long-time scholar of the region, as 
        to specific areas where we can ask our partners in the Middle 
        East to contribute.

    Answer. As a long-time scholar of the region, I believe the United 
States' partners in the Middle East can and should do more to isolate 
the Iranian regime diplomatically, politically, and economically, in 
support of the administration's goals of deterring Iranian aggression 
in the region and ensuring freedom of navigation in the Persian Gulf. 
If confirmed, I would work with our partners to ensure that global oil 
markets remain stable--i.e., keeping oil production output high--a 
necessary condition to prevent a spike in prices, and help keep other 
states on board in the global campaign against Iran. I would also 
encourage our partners to fully implement U.S. policy on economic 
relations with Iran. Among other things, I would explore whether our 
Gulf partners would cut their own direct trade with Iran and/or 
consider secondary sanctions, to encourage would-be sanction busting 
companies to get on board with the campaign. I might also seek out 
additional military and financial contributions from our partners to 
offset U.S. military deployments in the region. If confirmed, I will 
work to ensure our Middle East friends join us as full partners in the 
global coalition to counter Iran-a campaign which serves our common 
interests.

    Question 9. There is public reporting on several proposed purchases 
by Middle East countries from Russia, that if consummated, would 
constitute a ``significant transaction'' in my view. You and I 
discussed this issue in our private meeting and I asked you about it in 
your nomination hearing.

    Question 10. Please provide at least three examples of weapons 
purchases that, if consummated by any government in the NEA Bureau with 
Russia, would constitute a ``significant transaction'' under Section 
231.

    Answer. I understand that the Department examines all reports of 
transactions on a case-by-case basis using a multifactor approach to 
evaluate significance. These factors include but are not limited to the 
following: the nature and magnitude of the transaction, its impact on 
U.S. national security and foreign policy, and its significance for 
Russian defense or intelligence sectors. I understand that the 
Department does not prejudge the sanctionability of transactions.

    Based on the precedent of Secretary Pompeo's responses to similar 
questions (included here for reference), please work with the 
professional staff of the State Department to respond to questions 
regarding this important issue.

    Question 11. When was the last time the U.S. was unable to provide 
security assistance to a particular unit within the NEA region or 
Turkey due to Leahy vetting?

    Answer. I understand the last time the Department denied security 
assistance to a unit in the NEA region due to Leahy vetting was in 
February 2018. The Department denied a request for security assistance 
based on Leahy vetting concerns to a Turkish unit in 2015, according to 
Department records.

    Question 12. Please provide details on the unit, why they were 
denied assistance, when assistance was resumed and the reasoning for 
that resumption.

    Answer. I understand that the Department denied assistance training 
to a tribal militia unit in Iraq due to derogatory information 
pertaining to the unit's commander, and that the United States has not 
extended security assistance to the unit since then. While Turkey is 
outside of my AOR, State Department has informed me that it denied 
assistance to a Turkish police unit in 2015 due to a credible 
allegation that the Turkish unit's commander was involved in torture 
and extrajudicial killing. The United States has not resumed assistance 
to the Turkish police unit since that allegation.

    Question 13. How has the State Department followed up with the unit 
and country in question to ensure compliance?

    Answer. I understand the Department continues to support the 
efforts of Iraqi and Turkish authorities to enhance their security 
forces' respect for human rights and accountability for human rights 
violations. However, the United States has not resumed support for the 
Turkish police unit since the allegation in 2015.

    Question 14. How has this Leahy determination influenced subsequent 
offers of assistance?

    Answer. I understand that all units credibly implicated in gross 
violations of human rights are prohibited from receiving U.S. security 
assistance until they have been brought to account for those 
violations.
    If confirmed, I will work with the State Department staff 
responsible for executing the Department's obligations under the Leahy 
laws to respond to Congressional questions relating to this important 
topic. I strongly believe--and my writings since 1998 available 
publicly-reflect a strong and consistent respect for human rights. The 
promotion of human rights is a core belief of mine, which, if 
confirmed, I intend to reflect in my policy recommendations.



                               __________


    Response to an Additional Question for the Record Submitted to 
                  David Schenker by Senator Jeff Flake

    Question 1. I appreciate the State Department's recent action to 
enforce our Open Skies agreements with Qatar and the UAE. Ensuring a 
level playing field for America's aviation industry is of utmost 
importance. If confirmed, will you continue the State Department's work 
to enforce and monitor these agreements to prevent unfair subsidies?

    Answer. Yes. I understand the Department of State has indicated 
that enforcing the United States' air transport agreements is a 
Department priority. If confirmed, I will keep you updated on the 
Department of State's efforts to enforce those agreements with 
countries in the Middle East.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              David Schenker by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Since 1998, I have written dozens of scholarly articles 
recommending how U.S. policymakers should support human rights and 
democracy promotion in the Middle East. In 2000, the Washington 
Institute for Near East Policy published a book I wrote titled 
``Palestinian Democracy and Governance: An Appraisal of the Legislative 
Council.'' It remains the only book in English about the Palestinian 
legislature. In this book, I described U.S.-funded efforts to 
strengthen good governance in the Palestinian Authority, and argued for 
increased U.S. support for institution-building in the PA. I have also 
testified before the European Union Parliament about religious freedom 
in Egypt. I believe my work has raised awareness about human rights and 
democracy in the Arab world among U.S. policymakers.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I would strive to make the work environment 
in the Bureau of Near Eastern Affairs friendly to all employees. I 
would explore career-ladder mentoring--assigning new employees a mentor 
to help them acclimate to the State Department environment and give 
them career advice. I would recognize various holidays and months that 
honor various groups. I would make sure that there are appropriate EEO 
procedures in place and annual trainings, as well as multiple avenues 
for employees to raise concerns.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of Near Eastern Affairs are fostering an 
environment that is diverse and inclusive?

    Answer. Part of being a leader is ensuring that the supervisors on 
your team are good leaders themselves. If confirmed, I would make sure 
that there are appropriate EEO procedures in place, annual trainings 
for supervisors, and that we routinely engage on the importance of 
diversity and inclusiveness.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff??

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

                               __________


     Responses to Additional Questions for the Record Submitted to 
                David Schenker by Senator Jeanne Shaheen

    Question 1. Mr. Schenker, you asserted during your nomination 
hearing that the United States had advised the Saudi-led Coalition not 
to undertake an offensive to take the Yemeni port city of Hodeidah. My 
understanding is that Secretary Pompeo did not explicitly discourage 
the Coalition from undertaking the offensive, and in fact, the U.S. is 
reportedly providing targeting and intelligence support to the 
operation. Could you please provide the evidence that formed the basis 
for your assertion during the hearing that the U.S. discouraged the 
Hodeidah offensive?

    Answer. Acting Assistant Secretary David Satterfield has publicly 
testified that the United States has been consistently clear with 
Saudi, Emirati, and Yemeni officials at every level that the 
destruction of critical infrastructure or disruption of the delivery of 
vital humanitarian aid and commercial goods is unacceptable. I 
understand that the administration supports a political settlement 
negotiated through U.N. mediation, not a military solution, to resolve 
the conflict and to ensure the critical goal of continued humanitarian 
access.

    Question 2. Mr. Schenker, during your nomination hearing, you 
stated that the reason for the hold that the State Department has 
placed on stabilization funding for Syria is to assess whether or not 
the provision of that aid is ``appropriate.'' I am struggling to see 
the logic in withholding this money after the U.S. has invested so much 
time and effort into pushing ISIS out of Syrian cities and towns. If 
confirmed, will you work to ensure that funding is disbursed?

    Answer. It is my understanding that the United States is working 
with its Coalition partners to support immediate stabilization and 
early recovery efforts in areas liberated from ISIS control, including 
the removal of explosive remnants of war, the restoration of essential 
services, and building local capacity to support longer-term 
sustainability. The administration is committed to an enduring defeat 
of ISIS. If confirmed, I will work to ensure all of this assistance and 
the funding provided by our international allies is targeted, 
effective, and at the appropriate level to ensure the lasting defeat of 
ISIS.

    Question 3. Mr. Schenker, the Lebanese Armed Forces is the most 
trusted public institution in Lebanon and has been hailed by the 
Defense Department as a critical counterterrorism partner in the 
region. That said, some have suggested that the LAF is guilty of 
transferring U.S. supplied military equipment to Hezbollah and that it 
collaborated with Hezbollah in counter-ISIS operations last year. I 
believe that these accusations are not well-founded, but I want to ask 
if you believe they are legitimate, and if so, should the U.S. continue 
to partner with the LAF?

    Answer. The Lebanese Armed Forces (LAF) is one of the United 
States' strongest counter-terrorism partners in the region. Without a 
strong military, Lebanon's existence as an independent and democratic 
partner in the region would be jeopardized. This would enable Hizballah 
to expand its influence even further and increase the risk of 
instability inside Lebanon and beyond.
    I understand that the LAF places a high priority on maintaining its 
exemplary track record with U.S. Government-provided equipment and 
fully complies with end-use monitoring requirements that mitigate the 
risk of any assistance being diverted to Hizballah. Prior to the 
provision of assistance, the United States vets all recipients for 
human rights violations and for affiliations with or support for 
terrorist organizations, including Hizballah. If confirmed, I would 
continue to support the rigorous application of end-use monitoring and 
vetting as a core requirement for all LAF-related security assistance 
programs.

    Question 4. Mr. Schenker, how can the U.S. work to lessen the 
influence of Hizballah in Lebanese governing institutions?

    Answer. I share your profound concern about Hizballah's 
destabilizing role in Lebanon and in the region. To curb Hizballah's 
influence, if confirmed, I will continue to support exercising existing 
sanctions authorities on Hizballah to the fullest extent possible, and 
will encourage our partners around the world to enhance their own 
efforts to degrade Hizballah's domestic and international capabilities 
and dismantle its global financial support network.
    U.S. assistance that develops Lebanon's ability to provide basic 
services for its people, including security services, such as through 
the Lebanese Armed Forces, is the backbone of U.S. policy to reinforce 
Lebanon's sovereignty and assert the Lebanese Government's authority 
throughout all of its territory. Strengthening Lebanese state 
institutions undermines Hizballah and its attempts to exploit a weak 
Lebanese central government.

    Question 5. Mr. Schenker, UNIFIL, the United Nations peacekeeping 
for in Lebanon, has played a key role in facilitating regular dialogue 
between the Lebanese and Israeli militaries to help avoid flare-ups 
along the blue line, while also conducting joint operations with the 
LAF in southern Lebanon. Do you agree that it is important for the U.S. 
to continue to support the renewal of UNIFIL's mandate?

    Answer. UNIFIL has a difficult mandate and operates in a difficult 
part of the world. The goal of the United States should be to ensure 
that UNIFIL is doing its job to the fullest extent possible, in line 
with the mission's robust mandate. U.N. Security Council resolution 
1701 (2006), gives UNIFIL broad authority to support Lebanon's efforts 
to extend its state authority and ensure that UNIFIL's area of 
operations is not used for hostile activity.
    UNIFIL should be more proactive in exercising its existing 
responsibilities. I understand that the most recent mandate renewal in 
2017, which was adopted unanimously, called on UNIFIL to increase its 
patrols and inspections across southern Lebanon and adjust its 
operational activities to expand the mission's visible presence on the 
ground. Along these lines, UNIFIL should also expand observation posts 
and checkpoints and report more thoroughly on any obstacles it 
confronts. If confirmed, I believe the United States' position on the 
mandate renewal this year should be shaped by an assessment of the 
degree to which UNIFIL has met the goals set forth last August, 
particularly regarding increased patrols and improved reporting.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              David Schenker by Senator Christopher Murphy

    Question 1. In a recent hearing before the Senate Foreign Relations 
committee, Acting Assistant Secretary David Satterfield was asked about 
conditioning U.S. support for the Saudi-led coalition in Yemen on the 
continued allowance of food, fuel, medical supplies, and other 
humanitarian assistance into the primary port of Yemen [Hudaydah port]. 
Ambassador Satterfield told the committee that if the Saudi-led 
coalition did not allow sustained access through Hudaydah and Saleef 
Ports, ``it would be exceedingly difficult to maintain the type of 
support for the coalition'' that currently exists. Please detail any 
support the U.S. is providing to the United Arab Emirates (UAE), Saudi 
Arabia, and other coalition partners for military operations to seize 
the port city of Hudaydah in Yemen.

    Answer. Acting Assistant Secretary David Satterfield has publically 
testified that the United States has been consistently clear with 
Saudi, Emirati, and Yemeni officials, at every level, that destruction 
of critical infrastructure or disruption of the delivery of vital 
humanitarian aid and commercial goods is unacceptable. The 
administration has said it continues to provide limited support to the 
Coalition in support of the Republic of Yemen Government and that the 
support includes efforts to improve Coalition process and procedures, 
including compliance with the law of armed conflict and best practices 
for reducing the risk of civilian casualties.

    Question 2. In a recent hearing before the Senate Foreign Relations 
committee, Acting Assistant Secretary David Satterfield was asked about 
conditioning U.S. support for the Saudi-led coalition in Yemen on the 
continued allowance of food, fuel, medical supplies, and other 
humanitarian assistance into the primary port of Yemen [Hudaydah port]. 
Ambassador Satterfield told the committee that if the Saudi-led 
coalition did not allow sustained access through Hudaydah and Saleef 
Ports, ``it would be exceedingly difficult to maintain the type of 
support for the coalition'' that currently exists. Is it your 
understanding that the administration asked the United Arab Emirates to 
refrain from initiating operations to attack Hudaydah city and its 
port, and instead to engage in political negotiations under the 
auspices of U.N. Special Envoy Martin Griffiths?

    Answer. Acting Assistant Secretary David Satterfield has publicly 
testified that the United States has been consistently clear with 
Saudi, Emirati, and Yemeni officials, at every level, that destruction 
of critical infrastructure or disruption of the delivery of vital 
humanitarian aid and commercial goods is unacceptable. I understand 
that the administration supports a political settlement negotiated 
through U.N. mediation, not a military solution, to resolve the 
conflict and to ensure the critical goal of continued humanitarian 
access, and that members of the administration remain in close contact 
with the U.N. Special Envoy to Yemen to ensure that this is 
accomplished.

    Question 3. In a recent hearing before the Senate Foreign Relations 
committee, Acting Assistant Secretary David Satterfield was asked about 
conditioning U.S. support for the Saudi-led coalition in Yemen on the 
continued allowance of food, fuel, medical supplies, and other 
humanitarian assistance into the primary port of Yemen [Hudaydah port]. 
Ambassador Satterfield told the committee that if the Saudi-led 
coalition did not allow sustained access through Hudaydah and Saleef 
Ports, ``it would be exceedingly difficult to maintain the type of 
support for the coalition'' that currently exists. Do you believe the 
United States should use our military support as leverage to encourage 
Saudi Arabia and the UAE to engage in political negotiations to end the 
war in Yemen?

    Answer. The administration has said it continues to provide limited 
support to the Coalition in support of the Republic of Yemen Government 
and that the support includes efforts to improve Coalition process and 
procedures, including compliance with the law of armed conflict and 
best practices for reducing the risk of civilian casualties. I 
understand that the administration supports a political settlement 
negotiated through U.N. mediation, not a military solution, to resolve 
the conflict and to ensure the critical goal of continued humanitarian 
access. If confirmed, I would work to ensure Saudi Arabia, the UAE, and 
all parties to the Yemen conflict participate in the U.N.-led mediation 
process.

    Question 4. Do you believe the United States should provide 
intelligence or military assistance to Saudi Arabia or the UAE to 
assist in operati4ons to seize the port city of Hudaydah, which risks 
killing or displacing hundreds of thousands of people and worsening an 
already catastrophic humanitarian situation? If yes, please explain 
whether you believe it is possible to ensure the unimpeded flow of 
vitally needed humanitarian and commercial goods to major population 
centers, including in Sanaa, during these military operations.

    Answer. The administration has said it continues to follow closely 
the developments in Hudaydah. I understand that the Secretary of State 
has said he has spoken to Emirati leaders--and made clear the 
administration's desire to address their security concerns while 
preserving the free flow of humanitarian aid and commercial goods to 
reach the Yemeni people who desperately need it.

    Question 5. Do you agree that the longer this war continues, the 
more damage Iran is able to do to Saudi Arabia via its support for the 
Houthis, and that ending the war with a negotiated settlement is the 
best way to marginalize Iran's interference in Yemen?

    Answer. I agree with the administration's position that the only 
possible solution to the conflict in Yemen is a negotiated political 
settlement under U.N. auspices. If confirmed, I will continue the 
administration's engagement with U.N. Special Envoy for Yemen Martin 
Griffiths and with key regional partners, including the Saudis and 
Emiratis, to revive political negotiations on an accelerated timeline. 
I understand Saudi and Emirati leadership have met with the Special 
Envoy and have consistently affirmed their support for his efforts.
    With respect to Iran, I understand the administration is working 
closely with our international and regional partners to place 
diplomatic and political pressure on Iran and to expose its malign 
activity in Yemen and throughout the region. If confirmed I intend to 
continue working with our Gulf partners to push back against Iran's 
regionally destabilizing actions, including through efforts to prevent 
Iranian weapons shipments from going into Yemen.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                  David Schenker by Senator Tim Kaine

    Question 1. I have been requesting the administration's domestic 
and international legal justification for April 2017 U.S. airstrikes in 
Syria since these attacks occurred. This includes numerous requests to 
review the administration's legal memo that was prepared on these 
strikes. Despite commitments from Secretary of State Pompeo to provide 
me this information, including most recently during a May 24th hearing 
where he said, ``I made a commitment to you that I would do it. I will 
turn to it this week,'' this information has still not been provided. 
This is especially disconcerting following the Department of Justice's 
public release of the legal justification for the April 2018 U.S. 
airstrikes on Syria. If confirmed to the position of Assistant 
Secretary, will you provide me and Members of Congress the 
administration's fulsome policy and legal rationales for its actions in 
your area of responsibility of the Near East? Will you ensure, as 
Secretary Pompeo has agreed to do, my review of the Syria legal memo 
justifying the 2017 airstrikes?

    Answer. If confirmed, I pledge to work with the Congress and to 
establish an open and effective line of communication. I agree that it 
is important for the Executive Branch to provide members of Congress 
and the public with detailed information about the basis for U.S. 
military operations.
    Regarding this specific request, I understand that this document is 
the subject of ongoing litigation and that there are substantial 
executive branch confidentiality interests implicated. If confirmed, I 
would want to be fully briefed by State Department staff on this 
matter.

        Question 1 (follow-up). Do you share Secretary Pompeo's 
        commitment to provide me access to the administration's legal 
        memo on the 2017 U.S. airstrikes in Syria? Yes or no.

          Answer. I have not had an opportunity to read the memo in 
        question or speak to the Secretary about it. If confirmed, I 
        look forward to reading it and working with Secretary Pompeo 
        and others in the administration regarding this memo and what 
        additional information the administration may be able to share 
        with you regarding the legal justification for the 2017 U.S. 
        airstrikes in Syria.

    Question 2. What is the justification for not moving forward with 
funding to West Bank and Gaza that Congress has appropriated? Do you 
support funding for critical programs in the West Bank and Gaza to help 
the Palestinian people, including humanitarian assistance, support for 
schools, health, infrastructure and people-to-people? Will you commit 
to ensuring that funding for these critical programs will be released 
before the end of the fiscal year?

    Answer. I understand that the administration routinely conducts 
reviews of U.S. foreign assistance in order to ensure it is meeting 
U.S. national security interests, achieving U.S. policy objectives, and 
providing value to U.S. taxpayers. It is my understanding that U.S. 
assistance to the Palestinians is under review, and that the 
administration has not yet reached a decision. If confirmed, I look 
forward to briefing you and your staff at the conclusion of that 
review.

        Question 2 (follow-up).  Again, do you support funding for 
        critical programs in the West Bank and Gaza to help the 
        Palestinian people, including humanitarian assistance, support 
        for schools, health, infrastructure and people-to-people? Will 
        you commit to ensuring that funding for these critical programs 
        will be released before the end of the fiscal year? If you 
        can't make this commitment until confirmed, please tell me what 
        your recommendation would be now to the administration 
        regarding the release of this funding based on your current 
        position.

          Answer. I support the administration's goal of ensuring that 
        all U.S. foreign assistance, including any U.S. assistance to 
        the West Bank and Gaza, meets U.S. national security interests, 
        achieves U.S. policy objectives, and provides value to U.S. 
        taxpayers. I share your concern about the humanitarian 
        situation in Gaza, but I have not participated in the ongoing 
        administration review of our assistance to the West Bank and 
        Gaza, and I am therefore not in a position today to say what 
        advice I would offer if confirmed and apprised of the review's 
        findings. If confirmed, I look forward to engaging you and your 
        staff once I am briefed on the findings of our review of U.S. 
        assistance to the Palestinians and have discussed the way 
        ahead.

    Question 3. In April 2018, the State Department approved the sale 
of 12 AH-1Z attack helicopters, worth approximately $911 million, to 
Bahrain. This approval comes as the Bahraini Government has sharpened 
its crackdown on activists, lawyers, journalists, revoked a record 
number of citizenships of nationals, carried out unfair trials of 
civilians in military courts and harassed, intimidated, imprisoned and 
prosecuted rights defenders--such as Nabeel Rajab--and their family 
members. Last year, the U.N. High Commissioner for Human Rights said 
that the ``democratic space in the country has essentially been shut 
down.''

   With this context in mind, what are the key points of U.S. leverage 
        that could encourage the Bahraini Government to reverse course 
        on some of its most recent restrictions, including the recent 
        draconian sentencing of Nabeel Rajab? Do you believe selling 
        weapons to the Bahraini Government as it continues to 
        dramatically stifle dissent will result in Bahrain making 
        progress on its commitments to reform?

    Answer. I believe our key point of leverage with the Bahraini 
Government should be our continued regular engagement with the 
Government and other elements of Bahraini society. The security threats 
Bahrain faces from Iran are real, but should not be an excuse for 
restricting human and political rights. If confirmed, I will have this 
honest engagement with the Bahraini Government.
    I believe that we should pair our U.S. military sales to the 
Bahraini Government with a clear understanding that Bahrain's own long-
term stability and security depend on its achieving political 
reconciliation and upholding its commitments to universal human rights.

        Question 3 (follow-up). Please describe what you mean by 
        ``pair.'' Do you believe that U.S. military assistance to 
        Bahrain should be conditioned on the Bahraini Government 
        improving human and political rights? If not, please explain 
        how regular engagement will provide leverage and why you 
        believe such regular U.S. Government engagement has not led to 
        these changes thus far. What would you do differently?

          Answer. If confirmed, I will ensure our regular engagement 
        with Bahrain underlines the importance of human and political 
        rights, making the case for political inclusion as an essential 
        component of Bahrain's stability, while ensuring it has the 
        means to defend itself from regional threats and domestic 
        terrorism.

    Question 4. This year's Senate NDAA includes a provision that 
allows DoD to better support the State Department and USAID in their 
efforts to transition from military to stability operations following 
conflict. A key lesson learned from the Iraq War was that our military 
was not equipped to conduct post-conflict stability operations, which 
contributed to a resurgence of violence. This provision will authorize 
DoD to properly support State and USAID in their efforts to access hard 
to reach areas in Iraq, Syria, Afghanistan and Somalia to provide 
lasting stability.

   Do you agree that the State Department and USAID have the 
        appropriate expertise to conduct stabilization operations in 
        the post conflict environments of Iraq and Syria? Do you agree 
        that a lack of embassy or State Department presence and a lack 
        of security and logistics capability has inhibited the State 
        Department from conducting stability operations in Iraq and 
        Syria? Can you provide examples of where this stabilization 
        authority could be useful in helping USAID and State gain 
        access to areas in Iraq and Syria where security and logistics 
        issues are currently preventing them from implementing post-
        conflict assistance?

    Answer. I understand that the Department of State and USAID have 
the required technical expertise to provide stabilization assistance in 
areas liberated from ISIS in Iraq and Syria, working in close 
collaboration with Coalition military forces. However, I understand the 
Department of State would be happy to brief you in greater detail on 
this subject. If confirmed, I look forward to engaging with you and 
your staff on this matter in greater detail.

        Question 4 (follow-up). Do the State Department and USAID 
        currently have the presence, security, and logistical 
        capability to apply their technical expertise in stabilization 
        in areas liberated from ISIS in Iraq and Syria? How can the 
        Department of Defense better enable State and USAID activities 
        in recently liberated areas in Iraq and Syria? Please provide 
        specific examples where you believe such assistance can be 
        used.

          Answer. I understand that the State Department and USAID have 
        the ability to conduct stabilization programs; however, I have 
        not been briefed on these programs yet and do not have all the 
        details at this time. If confirmed, I look forward to receiving 
        in depth briefings, including access to classified reporting, 
        to better understand the programs. I look forward, if 
        confirmed, to engaging you and your staff on this issue 
        further.

    Question 5. What do you believe are Russia's objectives in the 
region? What is Russia's strategy in the Middle East and how do these 
elements support Russia's global goals? What recommendations do you 
have to counter Russia's increased presence and influence in the Middle 
East and what policies would you pursue as Assistant Secretary to do 
so?

    Answer. Russia's objectives in the Middle East are to reestablish 
its relevance as a great power and undermine U.S. alliances and 
influence. Russia seeks to achieve these goals in the region mainly 
through arms sales and energy deals and in Syria, specifically, through 
military intervention. In Syria, Russia seeks to keep the Assad regime 
in power in order to retain its historical influence and bolster its 
regional stature, while preserving its military and economic interests.
    The United States can counter Russia's influence by showing allies 
the value of continued cooperation. Across the region, the United 
States can demonstrate that it recognizes the threat from terrorism and 
Iran's malign regional influence and work with partners to counter 
these threats. Sustained diplomatic engagement should play a central 
role in this approach.

        Question 5 (follow-up) Do you support the use of Section 231 
        sanctions under the Countering America's Adversaries Through 
        Sanctions Act (CAATSA) to reduce Middle Eastern countries 
        dependence on the Russian defense sector for arms acquisitions? 
        I agree with your assessment that sustained diplomatic 
        engagement should play a central role in countering Russia in 
        the Middle East. Have personnel cuts and unfulfilled positions 
        at the State Department strained the Department's ability, 
        agnostic of regional ally efforts, to sustain diplomatic 
        engagement at a pace sufficient to counter Russia's influence?

          Answer. If confirmed, I look forward to looking at the range 
        of sanctions options available to reduce Middle Eastern 
        countries dependence on the Russian defense sector. However, I 
        understand that the administration has expressed its support 
        for implementing sanctions under Section 231 of the Countering 
        America's Adversaries Through Sanctions Act (CAATSA) with the 
        necessary waiver authorities that both Secretary Pompeo and 
        Secretary Mattis have raised with Congress.
    On the topic of personnel matters, I must defer to the Department 
of State. However, I would note Secretary Pompeo's testimony to the 
SFRC in which he emphasized the need to ``get the team back on the 
field.'' If confirmed, ensuring NEA has the personnel it needs to 
accomplish its mission will be one of my highest priorities.

    Question 6. Do you commit that regime change should never be an 
acceptable policy goal of the United States, including in Iran?

    Answer. Both Secretary Pompeo and National Security Advisor John 
Bolton have said the administration is not seeking regime change in 
Iran. The Secretary has been clear that the administration is seeking a 
change in the Iranian regime's behavior.

        Question 6 (follow-up). Do you believe that regime change is 
        ever an acceptable policy goal of the United States? Yes or no.

          Answer. A question of this hypothetical nature cannot be 
        answered without the necessary facts. In the case of Iran, 
        Secretary Pompeo has been clear that the administration does 
        not seek regime change.

    Question 7. On September 3, 2015, then-DHS Secretary Jeh Johnson 
designated Yemen for TPS based on the ongoing armed conflict in the 
country that poses a serious threat to the safety of returning 
nationals. Secretary Johnson extended the designation for 18 months in 
January, 2017. Do you believe that country conditions and threats to 
the safety of returning nationals in Yemen have improved since January 
2017? In addition to the armed conflict, the United Nations has warned 
that Yemen is at risk of severe famine. Would you recommend to 
Secretary Nielsen that she take into account the famine's potential 
effects on returnees as she considers the redesignation of TPS for 
Yemeni nationals?

    Answer. The Department's role in TPS decisions is advisory. Section 
244 of the Immigration and Nationality Act provides the DHS Secretary 
with sole authority to designate a foreign state for TPS, or to extend 
or terminate its designation, after consultation with appropriate 
government agencies. DHS has traditionally consulted with the 
Department of State. As requested, the Department will continue to 
contribute its input to DHS for use by Secretary Nielsen as she makes 
her determinations. Any Department input would draw upon the State 
Department's unique country, regional, and humanitarian expertise to 
evaluate country conditions against the criteria set out in the TPS 
statute. As I understand the process, as the Department develops its 
TPS input to DHS, all relevant information received from different 
parts of the Department is considered.

        Question 7 (follow-up). Based on what you know today would you 
        recommend that Secretary Nielsen extend TPS designation for 
        Yemeni nationals?

          Answer. I have limited insight into this process in my 
        current capacity, but I understand that in January of 2017 DHS 
        found that Yemen met the criteria under the law and TPS for 
        Yemeni nationals was extended through September 3, 2018. Based 
        on what I understand of the process, the State Department 
        contributes to the Department of Homeland Security's TPS 
        decision process. The State Department examines a broad range 
        of information and then makes a recommendation to the Secretary 
        of State. After reviewing all the information, the Secretary of 
        State makes a recommendation to the Secretary of Homeland 
        Security, who ultimately decides.
          If confirmed, I look forward to engaging you and your staff 
        on this issue and the humanitarian situation in Yemen which is 
        a concern to everyone.

    Question 8. Tunisia has taken key steps toward democracy since the 
2011 popular uprising that overthrew a longstanding authoritarian 
regime, and despite some internal political frictions, many observers 
describe it as the lone success story of the ``Arab Spring'' uprisings. 
What more can or should the U.S. Government do to ensure that Tunisia 
remains on the right track to consolidate its nascent democracy and 
improve its economic prospects?

    Answer. My understanding is that the administration is fully 
committed to supporting Tunisia's democracy and its efforts to advance 
difficult, but necessary economic reforms.
    The United States has provided Tunisia with over $1.3 billion 
dollars in assistance since 2011 to help it meet an array of 
challenges, including a stagnant economy, marginalized provincial 
populations, and the threat of terrorism from homegrown extremists and 
ISIS's Libya branch. Continued support for programs that promote 
democracy, good governance, and human rights is vital to assist Tunisia 
as it consolidates its democratic gains. It is my understanding that 
U.S. officials regularly engage the Tunisian Government to encourage 
further economic and institutional reforms to deliver growth and jobs 
for the Tunisian people, create a more attractive environment for U.S. 
and other international investors, and combat corruption. U.S. economic 
assistance programs are geared towards supporting these reform efforts. 
If confirmed, I would review the levels of U.S. assistance to Tunisia, 
and advocate to adjust them if appropriate.

    Question 9. What specific steps would you take as Assistant 
Secretary to help resolve the intra-GCC rift? What are the goals and 
objectives of the U.S.-GCC summit, now planned for September 2018?

    Answer. The Gulf dispute is negatively affecting our interests and 
only benefits Iran. If confirmed, I would encourage all sides to 
address their concerns through negotiations and direct engagement. 
President Trump has publicly pressed GCC leaders to resolve the 
dispute. If confirmed, I will work with others in the administration to 
advance this goal.

        Question 9 (follow-up). Again, what specific steps would you 
        take as Assistant Secretary to help resolve the intra-GCC rift? 
        What are the goals and objectives of the U.S.-GCC summit, now 
        planned for September 2018?

          Answer. If confirmed, I will prioritize direct engagement 
        with the leadership of all the countries involved in the 
        dispute to emphasize the President's message that the United 
        States wants the dispute resolved. I will stress that the 
        dispute prevents some of the United States' most important 
        allies in the region from cooperating to confront Iran, and 
        that the dispute has degraded the GCC as an institution, 
        hindered U.S. efforts to strengthen regional defense 
        cooperation, and resulted in provocative rhetoric that could 
        deepen resentment among governments and populations.
          Regarding the U.S.-GCC summit, if confirmed, I commit to 
        ensuring you are comprehensively briefed on the United States' 
        goals and objectives.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                  David Schenker by Senator Todd Young

    Question 1. I have worked closely with Ambassador Satterfield on 
Yemen, and I would like to develop the same relationship with you once 
confirmed. Is the United States supporting in any way the Saudi and 
Emirati-led coalition's military operations to take Hodeidah?

    Answer. I understand that the United States has not changed its 
level of support to the Saudi-led coalition in Yemen as a result of the 
Hudaydah operation. The non-combat support includes efforts to improve 
coalition processes and procedures, especially regarding compliance 
with the law of armed conflict and best practices for reducing the risk 
of civilian casualties. It also includes coordinating with the 
coalition, United Nations, and NGOs to pass no-strike targets. The 
administration continues to stress, at the highest levels, to foreign 
partners the need to avoid any action that disrupts the flow of 
humanitarian assistance and commercial goods through Hudaydah port. If 
confirmed, I am committed to working with you closely on Yemen.

    Question 2. If confirmed, do you commit to ensuring that you and 
your bureau provide timely and responsive answers to questions and 
requests from my office?

    Answer. Yes. If confirmed, I will maintain the Department of 
State's efforts to brief your office on diplomatic events and policy in 
the Middle East and North Africa region, and work with the Bureau of 
Legislative Affairs to respond to your queries in a timely manner.

    Question 3. Will you keep me updated on efforts to enforce Open Sky 
agreements in the Middle East?

    Answer. Yes. I understand the Department of State has indicated 
that enforcing the United States' air transport agreements is a 
Department priority. If confirmed, I will work with the Bureau of 
Legislative Affairs to keep you updated on the Department of State's 
efforts to enforce those agreements with countries in the Middle East.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                David Schenker by Senator Cory A. Booker

Syria
    Question 1. In March, the Trump administration announced that it 
would freeze $200 million in funding for stabilization efforts in 
Syria. These stabilization funds are used to consolidate gains against 
ISIS through targeted programs to remove mines and explosive devices, 
deploy electricity, and provide basic services essential to getting 
displaced Syrians back to their homes. This funding was also used to 
support the White Helmets, which does lifesaving rescue work.
    Senators Kaine and Cardin joined me in a letter to President Trump 
expressing our concern about the freeze on this funding and asked the 
President to report on how this would bolster Iranian and Russian 
influence in Syria. We have not yet received a response to our letter.
    Furthermore, in Istanbul last month, I met with our START Forward 
team, which implements our Syria humanitarian programs, who said that 
they would have to start shuttering their programs and operations in 
Idlib (northwest Syria), where Al Qaeda is strengthening its base.

   Do you believe that withholding stabilization funding for Syria 
        serves U.S. national security interests?

    Answer. It is my understanding that the President has asked that 
all bilateral foreign assistance for Syria stabilization efforts be 
reviewed. I further understand that the administration will then 
determine appropriate assistance needs, and encourage our partners in 
the Global Coalition to Defeat ISIS to share the burden of 
consolidating the Coalition's military gains and preventing the 
resurgence of ISIS. If confirmed, I will work to ensure all our 
assistance is in our national security interests and is targeted, 
effective, and at the appropriate level.

    Question 2. In March, the Trump administration announced that it 
would freeze $200 million in funding for stabilization efforts in 
Syria. These stabilization funds are used to consolidate gains against 
ISIS through targeted programs to remove mines and explosive devices, 
deploy electricity, and provide basic services essential to getting 
displaced Syrians back to their homes. This funding was also used to 
support the White Helmets, which does lifesaving rescue work.

   How does this funding freeze bolster Iranian and Russian influence 
        in Syria? Has the administration completed an analysis of the 
        impacts of our humanitarian withdrawal that is coordinated with 
        State, USAID, and DoD?

    Answer. It is my understanding that the administration is fully 
aware of Iran's destabilizing behavior in Syria, which includes 
providing arms, financing, and training to the Assad regime, as well as 
funneling Iraqi, Afghan, and Pakistani foreign fighters to support it. 
If confirmed, I will work with the administration to continue to 
strengthen its comprehensive strategy to address Iranian and Russian 
destabilizing actions in Syria.
    It is my understanding that the $200 million in question does not 
include humanitarian assistance, and no humanitarian assistance to 
Syria is on hold. The United States is the largest single country 
humanitarian aid donor to the Syria response since the start of the 
crisis.

    Question 3. In March, the Trump administration announced that it 
would freeze $200 million in funding for stabilization efforts in 
Syria. These stabilization funds are used to consolidate gains against 
ISIS through targeted programs to remove mines and explosive devices, 
deploy electricity, and provide basic services essential to getting 
displaced Syrians back to their homes. This funding was also used to 
support the White Helmets, which does lifesaving rescue work.
    Senators Kaine and Cardin joined me in a letter to President Trump 
expressing our concern about the freeze on this funding and asked the 
President to report on how this would bolster Iranian and Russian 
influence in Syria. We have not yet received a response to our letter.
    Furthermore, in Istanbul last month, I met with our START Forward 
team, which implements our Syria humanitarian programs, who said that 
they would have to start shuttering their programs and operations in 
Idlib (northwest Syria), where Al Qaeda is strengthening its base.

   If confirmed, would you advise the President to withdraw from 
        Syria?

    Answer. U.S. military forces are in Syria for the sole mission of 
ensuring the enduring defeat of ISIS. This mission is not over. As the 
President has stated, the United States remains committed to 
eliminating the small area of territory ISIS still holds in Syria. 
Premature withdrawal of U.S. forces would place these territories at 
risk of ISIS' return. If confirmed, it will be my job to support the 
diplomacy necessary to achieve the President's intent and our country's 
national security. My advice would be based on the conditions on the 
ground.

    Question 4. Furthermore, in Istanbul last month, I met with our 
START Forward team, which implements our Syria humanitarian programs, 
who said that they would have to start shuttering their programs and 
operations in Idlib (northwest Syria), where Al Qaeda is strengthening 
its base.

   If confirmed, would you advise the President to deploy 
        stabilization funds in northwest Syria?

    Answer. It is my understanding that the administration has decided 
to transition certain U.S. assistance efforts in northwest Syria over 
the coming months to enhance our focus on efforts to the defeat ISIS 
campaign in the northeast, stabilizing areas liberated from ISIS. If 
confirmed, I will work to expedite our review of all bilateral foreign 
assistance for Syria stabilization efforts to ensure all our assistance 
is targeted, effective, and set at the appropriate level.
Lebanon
    Question 5. There are some calls for cutting off funding to the 
LAF. Do you support that position?

    Answer. The Lebanese Armed Forces (LAF) have been an important 
counterterrorism partner and led the defeat of ISIS in Lebanon.
    If confirmed, I will continue to ensure that U.S. assistance to the 
LAF serves our objectives, enabling it to reinforce Lebanon's 
sovereignty and secure its borders, counter internal threats, build up 
legitimate state institutions, and undermine the false narrative that 
Hizballah is a guarantor of Lebanon's security.

    Question 6. Up until recently, the Lebanese people have generously 
taken in Syrian refugees that have been displaced by the brutal 
conflict in the region. There are now some voices in the Government 
pushing for their return. Will you work to find ways to ensure Lebanon 
has what it needs to ensure that the goodwill that the international 
community has towards Lebanon remains intact?

    Answer. Lebanon hosts the highest per capita number of refugees in 
the world, and the second highest number of Syrian refugees. The influx 
of refugees from Syria has presented significant challenges to 
Lebanon's public services and social cohesion. Since the start of the 
conflict in Syria, the United States has provided nearly $1.8 billion 
in humanitarian aid to international and non-governmental organizations 
in Lebanon to meet the life-saving needs of Syrian refugees and 
vulnerable Lebanese. The United States also helps address extraordinary 
development needs in Lebanon arising from the Syria crisis, including 
education, water, and economic growth, with a focus on areas where 
refugees are having the greatest impact on host communities. If 
confirmed, I will support the continuation of assistance to Syrian 
refugees sheltering in Lebanon until such a time that Syrians can 
return voluntarily in safety and dignity.



                               __________


                              NOMINATIONS

                              ----------                              


                        THURSDAY, JUNE 21, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:17 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Tim Johnson, 
presiding.
    Present: Senators Johnson [presiding], Flake, Gardner, 
Young, Murphy, Markey, and Booker.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good afternoon. This hearing of the Senate 
Foreign Relations committee will come to order.
    Today, we gather to consider four nominations: The 
Honorable Brian Nichols, to be the U.S. Ambassador to Zimbabwe; 
Mr. Gordon Sondland, to be the U.S. Representative to the 
European Union, with the rank of Ambassador; Mr. Ronald 
Gidwitz, to be U.S. Ambassador to Belgium; and Ms. Cherith 
Norman Chalet, to be the U.S. Representative to the United 
Nations for U.N. Management and Reform, with the rank of 
Ambassador and Alternative U.S. Representative to the Sessions 
of the United Nations General Assembly. That is a mouthful. 
[Laughter.]
    Senator Johnson. I want to welcome the nominees and their 
families. And, in your opening statements, I hope you will 
introduce your families and your friends to this committee. And 
I congratulate all of you on your selection by the President 
for these positions, and I want to thank you for your 
willingness to serve.
    Before moving to opening statements, I would like to 
welcome several distinguished colleagues who will help 
introduce our nominees. Senator Tillis, Senator Wyden will 
introduce Mr. Sondland. And Senator Gardner and Senator Durbin 
will introduce Mr. Gidwitz.
    Senator Tillis, if you would like to begin.

                STATEMENT OF HON. THOM TILLIS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair and members--I should 
say, members of the committee.
    It is my great privilege to introduce Mr. Gordon Sondland, 
who has been nominated to serve as the United States Ambassador 
to the European Union. Mr. Sondland was born in Seattle, 
Washington, and, as a first-generation American, his family 
history is both fascinating and instructive as to why he has 
the experience and understanding to serve as U.S. Ambassador to 
the EU.
    His parents, Gunther and Frieda Sondland, were born in 
Berlin, Germany, and were married in 1937. They were forced to 
escape the Nazi regime in Germany. His mother was able to 
escape because her father was Russian, and those with Russian 
passports could leave. She ended up in Uruguay, where Mr. 
Sondland's sister was born.
    His father was not so fortunate, and he had to be smuggled 
out of Germany. He actually wound up in France, where he joined 
the French Foreign Legion and fought in North Africa. He was 
put in a concentration camp in Africa, where he was rescued by 
British Army. He then joined the British Army, being fluent in 
German, assisted with decoding German ciphers. After 8 years, 
Mr. Sondland's parents were reunited and moved to Seattle in 
1953, where Gordon was born, 4 years later.
    Gordon went on to attend the University of Washington in 
Seattle, and began his business career in commercial real 
estate before managing The Aspen Group, an investment fund, for 
more that a decade. Mr. Sondland is currently the founder, 
chairman, and CEO of Provenance Hotels. He originally purchased 
the bankrupt hotel and transformed it into the enterprise he 
manages today, a national company, which now employs nearly 
1,000 employees, and owns and manages hotels across a 
geographically diverse environment in the United States.
    In addition to his great business experience, Mr. Sondland 
has been heavily involved in a number of philanthropic 
activities. He is cofounder of the Gordon Sondland and 
Katherine J. Durant Foundation, which strives to help families 
and boost communities. He has also served on a number of local, 
State, national boards, and advisory committees in the past, 
and he currently serves on several boards, including U.S. 
Bancorp, Washington State Advisory Board, Sanford School Board 
of Visitors at Duke University, Oregon Health and Science 
University Foundation, and the George W. Bush Center.
    His family history and his contextual understanding that 
comes with it, combined with his extensive business experience 
in large enterprise and negotiations in markets and problem-
solving, relationship-building, and managing competing 
interests ideally suit him for the task.
    I would also tell you he is a man of great character and a 
great mentor to two of his kids, who had the good sense to go 
to a North Carolina school. They are at Duke University. I am 
sorry you did not have the grades to get into UNC Chapel Hill, 
but Duke is a good Plan B.
    So, Mr. Chair, thank you so much for holding this hearing. 
I could not think of a better person to take the post as 
Ambassador to the EU: Mr. Gordon Sondland.
    Senator Johnson. Thank you, Senator Tillis.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you. Thank you very much, Mr. 
Chairman.
    And let me make this a filibuster-free zone and perhaps 
just have my remarks put in the record and give you a sense of 
why I am here.
    I have known Gordon Sondland, known in the Pacific 
Northwest as ``Gordie,'' for well over a quarter of a century.
    And I think Senator Murphy asked, ``Well, how does that 
come about? Did he want to play in the NBA, too? You know, it 
was basketball that did it.'' Not really. There is a really 
small Jewish community in Oregon, and we pretty much know each 
other. So, the Zidells and the Rosenfelds and the Tanzers and 
the Sondlands, we are just people who get together and back 
good causes and try to stand up for our State, and, 
particularly, have an interest in global matters because of our 
family background.
    We are both--Gordon Sondland and I--we are the children of 
German parents, and both of our families fled the Nazis in the 
'30s. Gordon's father used his foreign-language fluency to help 
the British Army during the war. My dad, who lived for a while 
in Ridgefield, Connecticut, wrote the propaganda pamphlets for 
our Army that we dropped on the Nazis. And I am telling you, 
those pamphlets smoked.
    I mean, it basically told the Nazis they were going to 
freeze if they did not pack it in and give up to the red and 
white and blue. So, both Gordon's family and mine ended up in 
the United States as refugees. And I think we all know, America 
has always called to our shores from every nation on Earth the 
industrious and the creative, the steadfast and the devout. 
And, in effect, we had a constant infusion of individuals who 
share red, white, and blue values of hard work and love of 
country, the very core of our greatness.
    And my sense is--and Gordon and I have kind of touched on 
this over the years--that families like ours, and kids like us, 
who were really first-generation kids of refugees, there is a 
word for it--it is called Tikkun Olam, where you try to perfect 
the world. But, I think what I would say is, Gordon and 
families like ours, we always thought it was our job to give 
back, ``Always try to find a way to give back,'' was the way 
people talked about it in Jewish families in Oregon, whether it 
is the Sondlands or the Rosenfelds or the Wydens.
    Gordon and his wife, Katy, have been supporters of so many 
causes. One of the things that I especially like about the 
family is, they have been very generous to the Portland Art 
Museum, and, as a result, now kids can go to this terrific 
museum in Oregon. You know, we are 3,000 miles away from some 
of what people think of as the museums of New York and 
Washington, D.C., but now, because of the Sondlands, kids get 
to go to an art museum free.
    Gordie has also been involved in a number of other things 
that I feel very strongly about. I know both the Chair and the 
Ranking Minority Member care greatly about the Oregon--care 
greatly about healthcare. Gordon has been involved in the 
Oregon Health and Sciences University Foundation, where we are 
doing--with their good work, and Phil Knight, as well, who made 
a very generous donation recently--some cutting-edge work to 
deal with cancer.
    So, I will just close by saying that I think if you look at 
the totality of the experience that the Sondlands bring to this 
post at a time when lots of politics is polarized and divisive, 
Gordon Sondland is going to be a really good fit.
    And I will close with just one, kind of, comment about our 
State. What I have come to feel is, we sort of have an Oregon 
way about us. And it is not, like, written down somewhere. It 
is not, you know, in our Pioneer Square in downtown Portland, 
but it is all about--you will take a good idea wherever you can 
get it, caring about people, having a good heart. Our late 
colleague here in the Senate, Mark Hatfield, really practiced 
the Oregon way. Our late mayor in Portland, Vera Katz, 
practiced the Oregon way. I think when Gordon Sondland assumes 
this post--and I am going to say I really hope he is 
confirmed--he is going to speak with real impact, with an 
Oregon-way-type impact for problem solving, for values that we 
hold dear, particularly on issues like anti-Semitism, respect 
for human rights.
    And it is a pleasure to be able to be, I guess, part of the 
Oregon Caucus on behalf of the nominee, Gordon D. Sondland.
    Senator Johnson. Thanks, Senator Wyden.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. Thanks for 
holding this hearing.
    Let me welcome, first, though, Christina Gidwitz to the 
committee hearing. Christina's love of Ron Gidwitz, our 
nominee, Ambassador to Belgium, the love of Ron's life. I do 
not know if I am supposed to say this, but I am going to say it 
anyway and ask for forgiveness afterwards. Ron did not get 
married until his 40s, because he spent all of the time before 
that trying to convince Christina to say yes. I think that is 
the story. Correct? But, I also want to welcome Scott, who is 
here today, his son, and new fiance--new fiance, as in the last 
week--and Alexander, his son who is in Australia. Welcome to 
the family for--and for being here today. Thank you.
    The first time I met Ron, I knew immediately that I was 
going to get along great with him. Walking into his office in 
Chicago, there was a picture, a poster on his wall. It was a 
piece of farm equipment, a piece of farm equipment of a company 
called Calkins, I believe it was. And, as somebody who grew up 
in a very small town and who sold farm equipment, I knew a heck 
of a lot about a piece of equipment called a rod weeder, and 
did not think anybody else in America off of the farm would 
know about it, until I met Ron. And we had a long conversation 
about Midwest companies that have a legacy presence in Colorado 
and beyond. And here was Ron that morning, talking about all 
these household names that helped my community, my hometown, 
thrive, that he was a part of.
    Of course, there is his resume, which we can talk about 
today. And it shows that he is more qualified to serve our 
great Nation in this capacity as anyone else. He has decades of 
business experience leading nationally recognized brands and 
companies. He has been a national leader in Business Executives 
for National Security, a leader of the Boys and Girls Clubs 
across the Nation.
    Did not take long for me to recognize, though, that Ron 
Gidwitz just was not a business leader or a political leader. 
His bio is filled with far more than job experience. He is a 
mentor, a philanthropist, community leader. He is deep into 
leadership of the arts and the incredible Field Museum in 
Chicago. Mr. Gidwitz lives up to that adage, ``Of whom much is 
given much is expected.''
    There are few who lead, give, engage, champion, and inspire 
as much as Christina and Ron. The list of their generosity goes 
on and on, to healthcare, welfare of children, support for our 
military, national security, veterans, and, of course, 
education. Yet, none of it is done seeking recognition or 
asking anything of them in return. It truly is, to live up to 
that commitment, much is expected, and they have, indeed, lived 
up to this incredible standard.
    The Gidwitz family has never stopped giving, leading, 
championing others. And today's new mission is just one more 
step in giving back to his country, to our country. I know that 
this is why some of those closest to him call him ``Father 
Ron.'' He is one that serves everyone. People come to him for 
wisdom, guidance, and, when needed, some hard truth-telling. 
Peer-to-peer, CEO-to-CEO, or even young leaders and students, 
in the words of some of his closest friends, he serves as a 
source of strength and wisdom for all who seek him out. His 
greatest achievement is not how much he has given, but how he 
has impacted, influenced, and inspired all those around him.
    The mission in Belgium is more important than ever. Whether 
it is addressing the challenges in Europe or the tri-mission 
opportunities in Brussels, he will be a beacon of American 
values and a point of pride and diplomacy that will give 
comfort to all of us who recognize the importance of this role, 
the leadership an Ambassador provides and the value of selfless 
leadership.
    I am honored to be here today supporting Ron, his family. 
And I urge my colleagues to do the same.
    Congratulations.
    Senator Johnson. Thanks, Senator Gardner.
    Senator Durbin.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thanks, Mr. Chairman. It is great to be 
back at the Senate Foreign Relations committee. I am on leave 
of absence. I promise, someday I will return, just like 
MacArthur.
    But, I wanted to be here today especially because of the 
nomination of Ron Gidwitz to be our next Ambassador to Belgium. 
I will not replicate the remarks--kind remarks of Cory Gardner, 
of Colorado, on behalf of Ron and his family, but I will tell 
you that Ron and I share something in common, a life experience 
that goes back a few years. We were both interns in the United 
States Senate the same year, working for the same Senator. 
Morris Udall, a Congressman from Arizona, once said, ``If you 
have politics in your bloodstream, only embalming fluid will 
replace it.'' During the course of my internship in that Senate 
office, I got politics in my bloodstream, and I have never 
quite left Capitol Hill since.
    Ron took a different path. He went back to Chicago, into 
the business world. Successful in that world, with private 
business as well as with his investments and other endeavors. 
Did well for himself. But, as Cory has reminded us, he did not 
just sit on that success and bank the money and walk away from 
his responsibilities to many others. And I have known that for 
a long time. We are in an area of--era, I should say, where 
there is arguments made about hyper-partisanship, but I know 
that, when it came to service for the public, Ron was stepping 
up to serve Chicago's Democratic mayors as much as his own 
Republican friends. He included chairing the city's Economic 
Development Commission under Mayor Harold Washington and Eugene 
Sawyer. He chaired the City Colleges of Chicago under Mayor 
Richard Daley. Then he chaired the Illinois State Board of 
Education and a--he served, as well, as Cory has mentioned, as 
chairman and chairman emeritus for the Boys and Girls Club of 
America, in which he played a leading role for nearly 30 years. 
Over and over again, he stepped up for public service. He will 
do it again.
    Belgium is an important ally to the United States. The 
European Union's future is an important question for the United 
States. The future of the NATO alliance is one that we have to 
address on a regular basis, and should remind everyone it has 
meant peace in the world for a long period of time.
    Ron Gidwitz is the right person to serve as America's face 
and America's voice in Belgium, and I am happy to endorse his 
nomination.
    Senator Johnson. Well, thanks, Senator.
    I want to thank all of our Senate colleagues for coming 
here and providing an introduction. I think the bipartisan 
support for these nominees speaks well of them and of this 
process. So, as Chairman Corker always says, ``You are welcome 
to stay, just not sitting there.'' [Laughter.]
    Senator Johnson. But, we really do appreciate you making 
those introductions.
    I want to thank my other colleagues for attending, and I 
want to be respectful of their time. So, rather than reading an 
opening statement, I will just ask for consent to enter it into 
the record.
    [Senator Johnson's prepared statement follows:]


                Opening Statement of Senator Ron Johnson

    Good afternoon and welcome.
    The Senate Foreign Relations committee is meeting today to consider 
the nominations of ambassadorships to the EU, Belgium, and Zimbabwe, 
and an ambassador-rank representative to the U.N., dedicated to 
management and reform.
    Our nominees today, if confirmed, will represent U.S. interests in 
four important relationships.
    The immigration crisis, Brexit, and internal divisions over border 
policy and energy security have exposed fault lines in the European 
Union. Parties skeptical of the EU project have made gains across 
Europe, eroding confidence further. The EU's leaders need to bridge 
these gaps and forge a new consensus on these difficult issues, one 
that respects the concerns of all EU member states. The U.S. has 
supported the EU since its inception, viewing it as a stabilizing force 
on a continent ravished by two world wars in the 20th century. The EU 
needs our support now more than ever and sending an Ambassador to 
Brussels will reassure our EU partners of America's continued 
commitment.
    Belgium is a close friend and ally of the United States. Belgium 
has participated in the International Security Assistance Force in 
Afghanistan, the EU mission in Mali, and the Counter-ISIS Coalition, 
and contributed to various NATO missions. Belgium provides significant 
humanitarian assistance to Afghanistan, Iraq, and Syria, and many 
countries in Africa. As host of EU and NATO headquarters, Brussels is a 
critical hub for transatlantic security and international diplomacy. It 
is important to reinforce with Belgium the importance we attach to our 
relationship by sending an Ambassador to Brussels.
    On Tuesday, less than a year after the United States withdrew from 
UNESCO, Ambassador Haley and Secretary Pompeo announced the U.S. 
withdrawal from the U.N. Human Rights Council, citing systemic bias 
against Israel and a failure to hold human rights abusers accountable. 
These actions highlight the significant need for reform at the U.N. 
and, fittingly, Secretary General Guterres has made reform the central 
focus of his tenure. The Trump administration has strongly endorsed the 
Secretary General's efforts and tasked the U.S. Mission's Management 
and Reform Section with coordinating these efforts. Confirming an 
ambassador-rank representative to the U.N., dedicated to management and 
reform, will send a firm message and help maintain the current reform 
momentum.
    Zimbabwe is at a potential turning point in its history. With the 
end of Robert Mugabe's brutal reign, Zimbabwe has the opportunity to 
chart a new course--one that respects the inalienable rights of its 
citizens, roots out pervasive government corruption, and nurtures the 
institutions necessary to establish a durable democracy in the heart of 
Africa. It is therefore critical that the U.S. has a strong voice in 
Harare that can help Zimbabwe grasp its tremendous potential.
    Before moving to introductions, I would like to recognize the 
distinguished ranking member for his comments. Senator Murphy.


    Senator Johnson. I will turn to Senator Murphy.

                STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. I will take your cue, and we can get right 
to the nominees.
    Senator Johnson. Well, good.
    Well, so let me, again, begin by thanking our nominees, 
your families, for your willingness to serve in these very 
important capacities. These postings involve significant 
sacrifice, not only from just you, but--you know, for you 
personally, but also for your families. The positions you are 
in are going to be extremely important, from the standpoint of 
representing America to your countries, your institutions, but 
also representing those countries and institutions back to this 
body. And I am sure you will do a great job.
    So, we would like to start with The Honorable Brian 
Nichols. Ambassador Nichols is the President's nominee to be 
U.S. Ambassador to Zimbabwe. He is a career member of the 
Foreign Service and served as U.S. Ambassador to Peru from 2014 
to 2017. His prior postings include Principal Deputy Assistant 
Secretary of State for International Narcotics, Law Enforcement 
Affairs from 2011 to 2013, and Deputy Chief of Mission at the 
U.S. Embassy in Bogota from 2007 to 2010.
    Ambassador Nichols.

 STATEMENT OF HON. BRIAN A. NICHOLS, OF RHODE ISLAND, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
    THE UNITED STATES OF AMERICA TO THE REPUBLIC OF ZIMBABWE

    Ambassador Nichols. Chairman Johnson, Ranking Member 
Murphy, and distinguished members of the committee, it is an 
honor to appear before you today as the President's nominee to 
be the next United States Ambassador to the Republic of 
Zimbabwe. I am profoundly grateful to have the confidence of 
the President and the Secretary of State.
    As I approach 30 years in the Foreign Service serving at 
some of our most challenging missions, it is a humbling 
distinction to appear before the Senate for the second time as 
a nominee to serve the American people as Ambassador.
    My professional achievements owe to the wonderful women who 
join me today, my beautiful wife, Geri, also a senior Foreign 
Service Officer, and my daughters, Alex and Sophie.
    They have all pushed me to be a better person, sacrifice 
for my career, and nurtured me with their love and support.
    I would also like to recognize my older brothers, David and 
Keith, for the powerful example that they have set for me. They 
could not be here today.
    I have had the good fortune to represent the country that I 
love and fascinating countries around the world. I have 
advanced American values of respect for democracy, human 
rights, and the rule of law throughout my career. Those are 
values that my late father, Charles Nichols, a Fulbright 
Scholar and founder of Brown University's Africana Studies 
Program, instilled in me and my brothers. My mother, Mildred 
Nichols, has served the people of Rhode Island, promoting 
higher education, vocational training, and charitable programs 
to lift people out of poverty for 50 years.
    Should I be confirmed, I will draw upon those values and my 
experience to strengthen our relations with Zimbabwe as it 
reforms, promote American principles, and help the people of 
Zimbabwe build a better future. As I have in all of my previous 
assignments, I will have no higher priority than the welfare 
and security of American citizens.
    After 38 years of independence, Zimbabwe approaches a 
crossroads. The Government and people of Zimbabwe have the 
opportunity to follow a new path, to become a stable and 
democratic country while returning to the prosperity of the 
past. This is what the Zimbabwean people need and deserve.
    To fulfill this goal, the Zimbabwean Government should 
intensify its efforts to carry out profound governance, 
electoral, human rights, and economic reforms. An absolutely 
test will be the Zimbabwean authorities' ability to deliver, on 
July 30th, a free, fair, and credible national election in 
accordance with international standards. Given Zimbabwe's 
enormous potential, genuine reforms can, and will, yield great 
benefits for her people.
    If confirmed, I look forward to close and continued 
collaboration with our Congress to help Zimbabwe along a path 
of positive change. As we continue to support Zimbabwe's 
democratic development, we must also continue to invest in the 
people of Zimbabwe in healthcare, people-to-people exchanges, 
humanitarian aid, and business development to preserve the 
human capital needed to grow and improve Zimbabwe in the 
future.
    Today's Zimbabweans can look back across the centuries at a 
creative and complex civilization that built great Zimbabwe and 
influenced an entire continent. I have faith that, with our 
support, once given the opportunity to communicate, organize, 
and express their will, the people of Zimbabwe will find the 
best path forward and pursue it successfully.
    My recent Foreign Service assignments provide rich 
experience, should the Senate confirm me to serve as Ambassador 
to Zimbabwe. As Ambassador to Peru, I led a large mission that 
focused on improving the rule of law, fighting transnational 
crime and corruption, strengthening our host nation's 
institutions, and promoting respect for human rights, 
particularly of women, girls, and disadvantaged groups. In that 
role, I led a unified mission initiative to promote American 
businesses and grow American jobs, earning the Department's 
Cobb Award for those efforts.
    Prior to that, I helped direct the State Department's rule 
of law, anti-crime, and counternarcotics programming around the 
world, including in Africa. As the Principal Deputy Assistant 
Secretary for International Narcotics and Law Enforcement 
Affairs, I directed a team of nearly 7,000 professionals who 
work every day to expand access to justice, protect civilians, 
and combat crime around the world. I am especially proud of our 
efforts to expand our partnerships in Africa, to combat 
wildlife trafficking, and build more professional police and 
prosecutors.
    In those positions, as well as Deputy Chief of Mission in 
Bogota, I shaped organizations that were more diverse than 
ever, in terms of background and expertise, improved morale, 
ensured tight management controls, and effectively advanced our 
Nation's policies and priorities. Should the Senate confirm me, 
I will aim to exemplify the highest standards of our great 
Nation while doing so.
    I look forward to partnering with you to advance America's 
interests in Zimbabwe, and stand ready to answer your 
questions, now and in the future.
    [Ambassador Nichols's prepared statement follows:]


                 Prepared Statement of Brian A. Nichols

    Chairman Johnson, Ranking Member Murphy, and distinguished members 
of the committee, it is an honor to appear before you today as the 
President's nominee to be the next United States Ambassador to the 
Republic of Zimbabwe. I am profoundly grateful to have the confidence 
of the President and Secretary of State.
    As I approach 30 years in the Foreign Service, serving at some of 
our most challenging missions, it is a humbling distinction to appear 
before the Senate for the second time as a nominee to serve the 
American people, as Ambassador. My professional achievements owe to the 
wonderful women who join me today. My beautiful wife Geri, also a 
career Senior Foreign Service Officer, my daughters Alex and Sophie. 
They have all pushed me to be a better person, sacrificed for my 
career, and nurtured me with their love and support. I would also like 
to recognize my older brothers David and Keith for the powerful example 
that they set for me, though they could not be here today.
    I have had the good fortune to represent the country that I love in 
fascinating countries around the world. I have advanced American values 
of respect for democracy, human rights, the rule of law, and private 
enterprise throughout my career. Those are values that my late father, 
Charles Nichols, a Fulbright Scholar and founder of Brown University's 
Africana Studies program, instilled in me and my brothers. My mother, 
Mildred Nichols, has served the people of Rhode Island, promoting 
higher education, vocational training, and charitable programs to lift 
people out of poverty for 50 years. Should I be confirmed, I will draw 
upon those values and my experience to strengthen our relations with 
Zimbabwe as it reforms, promote American principles, and help the 
people of Zimbabwe build a better future. As I have in all of my 
previous assignments, I will have no higher priority than the welfare 
and security of American citizens.
    After 38 years of independence, Zimbabwe approaches a crossroads. 
The Government and people of Zimbabwe have an opportunity to follow a 
new path: to become a stable and democratic country while returning to 
the prosperity of the past. This is what the Zimbabwean people need and 
deserve. To fulfill this goal, the Zimbabwean Government should 
intensify its efforts to carry out profound governance, electoral, 
human rights, and economic reforms. An absolutely critical test will be 
the Zimbabwean authorities' ability to deliver on July 30 a free, fair, 
and credible national election in accordance with international 
standards. Given Zimbabwe's enormous potential, genuine reforms can and 
will yield great dividends for her people. If confirmed, I look forward 
to close and continued collaboration with our Congress to help Zimbabwe 
along a path of positive change.
    As we continue to support Zimbabwe's democratic development, we 
must also continue to invest in the people of Zimbabwe--in healthcare, 
people-to-people exchanges, humanitarian aid, and business 
development--to preserve the human capital needed to grow and improve 
Zimbabwe in the future. Today's Zimbabweans can look back across the 
centuries at a creative and complex civilization that built Great 
Zimbabwe and influenced an entire continent. I have faith that with our 
support, once given the opportunity to communicate, organize, and 
express their will, the people of Zimbabwe will find the best path 
forward and pursue it successfully.
    My recent Foreign Service assignments provide rich experience, 
should the Senate confirm me to serve as Ambassador to Zimbabwe. As 
Ambassador to Peru, I led a large mission that focused on improving the 
rule of law, fighting transnational crime and corruption, strengthening 
our host nation's institutions, and promoting respect for human rights, 
particularly of women, girls, and disadvantaged groups. In that role, I 
led a unified mission initiative to promote American businesses and 
grow American jobs, earning the Department's Cobb Award for those 
efforts.
    Prior to that, I helped to direct the State Department's rule of 
law, anticrime, and counter-narcotics programming around the word, 
including in Africa. As the Principal Deputy Assistant Secretary for 
International Narcotics and Law Enforcement Affairs, I directed a team 
of nearly 7,000 professionals who work every day to expand access to 
justice, protect civilians, and combat crime around the world. I am 
especially proud of our efforts to expand our partnerships in Africa to 
combat wildlife trafficking and build more professional police and 
prosecutors.
    In those positions, as well as Deputy Chief of Mission in Bogota, I 
shaped organizations that were more diverse than ever in terms of 
background and expertise, improved morale, ensured tight management 
controls, and effectively advanced our nation's policies and 
priorities. Should the Senate confirm me, I will aim to exemplify the 
highest standards of our great nation while doing so.
    I look forward to partnering with you to advance America's 
interests in Zimbabwe and stand ready to answer any questions you might 
have now and in the future.


    Senator Johnson. Thank you, Ambassador Nichols.
    Our next nominee is Mr. Gordon Sondland, the President's 
nominee to be U.S. Representative to the European Union. I 
think, after the introductions by Senator Wyden and Senator 
Tillis, I do not think any further introduction is necessary.
    So, Mr. Sondland.

 STATEMENT OF GORDON D. SONDLAND, OF WASHINGTON, NOMINEE TO BE 
REPRESENTATIVE OF THE UNITE3D STATES OF AMERICA TO THE EUROPEAN 
UNION, WITH THE RANK AND STATUS OF AMBASSADOR EXTRAORDINARY AND 
                        PLENIPOTENTIARY

    Mr. Sondland. Before I begin, I want to thank both Senators 
Tillis and Wyden for an overly generous introduction. It was 
much appreciated.
    Chairman Johnson, Ranking Member Murphy, and distinguished 
members of the Foreign Relations committee, good afternoon. It 
is an honor to appear before you as the President's nominee to 
serve as the United States Ambassador to the European Union. I 
am grateful to President Trump for the faith and confidence he 
has placed in me, and to Secretary Pompeo for his support. And 
I am very grateful to you for your consideration of my 
nomination.
    Before we begin, please allow me to introduce the members 
of my family, all here in attendance with me. First, my wife, 
Katy, without whose intelligence, kindness, patience, and wit, 
I might have achieved very little, certainly not a place at 
this table. She is a formidable success in business as well as 
in our home, and she has been an enduring source of strength 
and humbling smart advice since the day I was fortunate to meet 
her, nearly 30 years ago.
    Sitting next to Katy are our two proudest accomplishments, 
our children, Max and Lucy, both of whom are undergraduates at 
Duke, and both of whom departed very challenging summer 
internships so they could be here today.
    Absent today, but with me in spirit this past decade, are 
my parents, Gunther and Frieda Sondland. Having immigrated here 
in 1953 after so many years of extreme travail, they adopted 
America, and America adopted them, with a passion unrivaled by 
anyone I have since encountered.
    Theirs was a story of intense personal sacrifice, 
unshakeable spirit and faith, hard work, good luck, and a deep 
commitment devoted in equal parts to the United States and to 
each other.
    Having met and married in Berlin in 1938, Gunther and 
Frieda and my sister, Lucy, unlike so many of their less 
fortunate relatives, were able to flee the scourge of Naziism. 
In 1939, Frieda and Lucy found safe haven in South America 
while Gunther promptly volunteered to take up arms against the 
murderous authoritarian regime from which they had just 
escaped, first with the French Foreign Legion in Africa, and 
later with the British Army in Burma.
    World War II came to a close, and, 2 years later, so did 
Gunther and Frieda's 8-year separation, when they were reunited 
in Montevideo, Uruguay, in 1947. Along with tens of thousands 
of other Jews, Gunther's surviving family had sought shelter in 
Shanghai. Soon Gunther, Frieda, and my sister, Lucy, found 
fortunate permanent refuge in Seattle, Washington, on the 
northwestern edge of our great country.
    Here, they raised two children, including me, the first of 
my family ever to claim natural-born citizenship in the United 
States. Here, they embarked on their own unique American Dream, 
American citizens eventually starting and running a small, 
successful dry-cleaning business for the next 30 years. Here, 
they labored, loved, made many friends, and had a positive 
impact on their community. Here, they never ceased to be 
grateful to the country that had given them hope, safety, and a 
new beginning. Gunther and Frieda fought hard for their 
American citizenship. They cherished it and nurtured it. They 
bequeathed to us neither riches nor property, but something 
much more treasured, an abiding respect for industry, 
determination, and self-sufficiency, a deep love of God, 
family, and country, faith in the rule of law, and finally, the 
certainty that self-governance is essential to happiness, 
prosperity, and true liberty.
    Denied so many of these for so long, Gunther and Frieda 
embraced these American values with fervor. If confirmed, 
everything I say and do will be in advancement of American 
interests and these principles, first and foremost. They are 
certainly the principles that guide me throughout my life. Most 
of them, of course, comprise the foundational Western 
principles that undergird the U.S.-EU relationship that has 
endured since 1951. Between us, the United States and the EU 
member nations wield the largest economic and military power in 
the world, they dominate global trade, and they lead in 
international political developments. It is why our unique 
relationship with Europe must only be strengthened and 
protected.
    As President Trump said last year in his Warsaw speech 
establishing the preservation of the West as his primary 
foreign policy goal in Europe, quote, ``There is nothing like 
this community of nations. The world has never known anything 
like it. We must have the desire and the courage to preserve it 
in the face of those who would subvert and destroy it,'' close 
quote.
    As you know better than most, there are many challenges 
that confront us. Trade, security, the migrant crisis, Brexit, 
and the disposition of JCPOA are very much at the forefront. 
But, no one should doubt that the EU has an essential role in 
perpetuating our shared values of freedom, peace, and 
prosperity across Europe and around the world. To the benefit 
of our European friends, but also to a vast swath of American 
people, the 5.5 trillion in annual commerce we share is just 
one compelling testament to that.
    Finally, while much has been said about the tensions that 
currently exist within the U.S.-EU partnership, it is important 
to remember, historically, these ups and downs, these instances 
of public posturing, have been the norm. That is just the 
nature of complicated relationships. While it will not be 
always easy, our shared goals and values will triumph over our 
differences. I believe that my professional experience of the 
last several decades are instrumental in preparing me to lead 
the mission at the EU, should you confirm my nomination.
    I am gratified to have launched a hospitality and real 
estate holding company larger than I would have ever imagined, 
and sustaining several thousand individuals and their families 
from all walks of life and places. I have also traveled 
extensively throughout the world, including across Europe, and 
have a knowledge and deep respect for European culture and 
politics. While I have been fortunate to visit the vast 
majority of the EU member countries, if confirmed, I look 
forward to visiting them all.
    I am proud that the first language I spoke at home was 
German. And, if confirmed, I will look forward to once again 
conversing with our friends throughout Europe in English, but 
also in German, where spoken.
    During the course of my life, I have had significant 
experience in policymaking, working with lawmakers from both 
parties and at every level of government in negotiating 
business deals across borders and in advising several large 
companies with both domestic and international operations. I 
have always been comfortable working on a bipartisan basis. If 
confirmed, I can assure you that I will bring my life's 
experiences and skills to represent the United States at the 
European Union.
    Thank you for your consideration, and I would be pleased to 
answer your questions.
    [Mr. Sondland's prepared statement follows:]


                Prepared Statement of Gordon D. Sondland

    Thank you, Senators Tillis and Wyden, for that kind introduction.
    Chairman Johnson, Ranking Member Murphy, and distinguished members 
of the Foreign Relations committee, good afternoon. It's an honor to 
appear before you as the President's nominee to serve as the United 
States Ambassador to the European Union. I'm grateful to President 
Trump for the faith and confidence he's placed in me, and to Secretary 
Pompeo for his support. And, I'm grateful to you for your consideration 
of my nomination.
    Please allow me to introduce the members of my family, all here in 
attendance with me. First, my wife, Katy, without whose intelligence, 
kindness, patience, and wit, I might have achieved very little, and 
certainly not a place at this table. She's a formidable success in 
business, as well as in our home, and she's been an enduring source of 
strength--and humbling, smart advice--since the day I was fortunate to 
meet her nearly 30 years ago.
    Sitting next to Katy are our two proudest accomplishments, our 
children Max and Lucy, both of whom are undergraduates at Duke, and 
both of whom departed challenging summer internships so they could be 
here by my side. I'm delighted they could be here today.
    Absent today, but with me in spirit this past decade, are my 
parents, Gunther and Frieda Sondland. Having immigrated here in 1953 
after so many years of extreme travail, they adopted America--and 
America adopted them--with a passion unrivaled by anyone I've since 
encountered.
    Theirs was a story of intense personal sacrifice, unshakeable 
spirit and faith, hard work, good luck, and a deep commitment.devoted 
in equal parts to the United States and to each other. Having met and 
married in Berlin in 1938, Gunther and Frieda, and my sister Lucy, 
unlike so many of their less fortunate relatives were able to flee the 
scourge of Nazism. In 1939, Frieda and Lucy found safe haven in South 
America, while Gunther promptly volunteered to take up arms against the 
murderous, authoritarian regime from which they'd just escaped. First, 
with the French Foreign Legion in Africa, and later with the British 
Army in Burma. World War II came to a close, and two years later so too 
did Gunther and Frieda's eight-year separation, when they were reunited 
in Montevideo, Uruguay, in 1947. Along with tens of thousands of other 
Jews, Gunther's surviving family had sought shelter in Shanghai. Soon, 
they and Gunther, Frieda, and my sister Lucy found fortunate, permanent 
refuge in Seattle, Washington, on the Northwestern edge of our great 
country.
    Here, they raised their two children, including me, the first of my 
family ever to claim naturalborn citizenship in the United States. 
Here, they embarked on their own unique American dream, as proud 
American citizens, eventually starting and running a small successful 
drycleaning business for the next thirty years. Here, they labored, 
loved, made many friends and had a positive impact on their community. 
Here, they never ceased being grateful to the country that had given 
them hope, safety, and a new beginning. Gunther and Frieda fought hard 
for their American citizenship. They cherished it. They nurtured it. 
And, they marinated me and my sister Lucy in it. They bequeathed to us 
neither riches nor property, but something much more treasured: an 
abiding respect for industry, determination, and self-sufficiency; a 
deep love of God, family, and country--this country in particular; 
faith in the rule of law; and, finally, the certainty that self-
governance is essential to happiness, prosperity and true liberty.
    Denied so many of these for so long, Gunther and Frieda embraced 
these American values with fervor. If confirmed, everything I say and 
do will be in advancement of American interests, and these principles, 
first and foremost. They are certainly the principles that have guided 
me throughout my life. Most of them, of course, comprise the 
foundational Western principles that undergird the US/EU relationship 
that has endured since 1951.
    Between us, the United States and the EU member nations wield the 
largest economic and military power in the world, dominate global 
trade, and lead the way in international political developments. It is 
why our unique relationship with Europe must only be strengthened and 
protected.
    As President Trump said last year in his Warsaw speech establishing 
the preservation of the West as his primary foreign policy goal in 
Europe, ``there is nothing like this community of nations. The world 
has never known anything like it. We must have the desire and the 
courage to preserve it in the face of those who would subvert and 
destroy it.''
    As you know better than most, there are many challenges that 
confront us--trade, security, the migrant crisis, Brexit, and the 
disposition of the JCPOA very much at the forefront--but no one should 
doubt that the EU has an essential role in perpetuating our shared 
values of freedom, peace and prosperity across Europe, and around the 
world. To the benefit of our European friends, but also to a vast swath 
of the American people, the $5.5 trillion in annual commerce we share 
is just one compelling testament to that.
    Finally, while much has been said about the tensions that currently 
exist within the U.S.-EU partnership, it's important to remember that 
historically, these ups and downs, these instances of public posturing, 
have been the norm. That's just the nature of complicated 
relationships. While it won't always be easy, our shared goals and 
values will triumph over our differences.
    Beyond even my Frieda and Gunther education, I believe my 
professional experience of the last several decades has been 
instrumental in preparing me to lead the U.S. Mission at the EU, should 
you confirm my nomination.
    I'm gratified to have launched a hospitality and real estate 
holding company, larger than I would have ever imagined, and sustaining 
several thousand individuals and their families from all walks of life 
and places.
    I've also traveled extensively throughout the world, including 
across Europe, and have a knowledge and deep respect for European 
culture and politics. While I've been fortunate to visit the majority 
of the EU member countries, if confirmed, I will look forward to 
visiting them all.
    I'm proud that the first language I spoke at home was German. If 
confirmed, I'll look forward to once again conversing with our friends 
throughout Europe in English, but also in German where spoken.
    During the course of my life, I've had significant experience in 
policymaking, working with lawmakers from both parties, and at every 
level of government; in negotiating business deals across borders; and, 
in advising several large American companies with both domestic and 
international operations. I have always been comfortable working on a 
bipartisan basis. If confirmed, I can assure you that I will bring my 
life's experiences and skills to represent the United States at the 
European Union.
    Thank you for your consideration and I would be pleased to answer 
any questions you may have.


    Senator Johnson. Thank you, Mr. Sondland.
    Our next nominee is Mr. Ronald Gidwitz, the nominee to be 
U.S. Ambassador to Belgium. And again, following the 
introductions by Senator Gardner and Durbin, I do not think we 
need any further introduction.
    Mr. Gidwitz.

 STATEMENT OF RONALD GIDWITZ, OF ILLINOIS, A CAREER MEMBER OF 
 THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF NIGER

    Mr. Gidwitz. Thank you, Mr. Chairman. Chairman Johnson, 
Ranking Member Murphy, distinguished members of the committee, 
it is a tremendous honor to appear before you today as 
President Trump's nominee to be the United States Ambassador to 
the Kingdom of Belgium.
    For me, it is humbling that the President and Secretary 
Pompeo have the confidence in me, hopefully with your approval, 
to represent the American people in engaging with a critically 
important ally in the key center of Europe. I would 
particularly like to thank Senator Durbin and Senator Gardner 
for speaking on my behalf today.
    I would also like to thank several members of my family who 
sit behind me. First and foremost is Christina, to whom I have 
been married for almost 43 years. We have two sons, Alexander, 
who lives in Australia, and Scott, who joins us here today. 
Alex is married to a lovely young lady, Marlene, and she 
recently gave birth to our first grandson, Christopher. Scott 
is accompanied by his newly-minted fiance, Mallory DeHaven. My 
family's love and support has been a constant in every phase of 
my life.
    During my career, I have had a multiplicity of experiences 
in government service, in the private sector, as well as 
extensive exposure to the not-for-profit arena. In the private 
sector, I had the privilege of serving as the president and CEO 
of Helene Curtis, a toiletry and cosmetic manufacturer and 
marketer. When I took over the company, it had sales of just 
over $100 million. When the business was sold, 17 years later, 
the company was closing in on 1.5 billion and was on Fortune--
the Fortune 300 list, with 40 percent of its sales coming from 
outside the U.S. I have also served on a number of private-
sector boards of directors. One of note among them was American 
National Can, a subsidiary of the French aluminum company, 
Pechiney.
    In the public sector, I was a founding executive committee 
member of the National committee for Employer Support of the 
Guard and Reserve, and served in that capacity for 10 years. In 
addition, I was the chairman of the Economic Development 
Commission of the City of Chicago at a time when the Midwest 
was under great stress. I also served as the chairman of the 
City Colleges of Chicago, the second-largest community college 
district in the country. As well, I served two terms as the 
chairman of the Illinois State Board of Education. I was 
appointed to these and other public-service positions by both 
Republicans and Democrats. I believe the record will show that 
I can work well and lead organizations, no matter their 
political stripe.
    In the not-for-profit arena, I have worked in many kinds of 
establishments, from social service to cultural institutions to 
educational organizations. I have served as--in virtually every 
position over my 44-year tenure with Boys and Girls Clubs of 
America, including chairing the national organization. I served 
as the chairman of the Field Museum of Natural History, as well 
the Chicagoland Chamber of Commerce.
    In short, I have led large organizations and small ones, 
public and private and not-for-profit. I feel confident my past 
experience in government, business, and philanthropy has 
prepared me for this important opportunity to lead the United 
States mission to the Kingdom of Belgium.
    If confirmed to serve as U.S. Ambassador, I will work 
closely with the teams across the Government to strengthen our 
relationship and focus on the following areas of our alliance:
    First and foremost, I will work with Belgian officials at 
all levels to advance American interests, protect American 
citizens, and promote American democratic values. The freedom 
of speech, the freedom of press, and the freedom of religion 
are values that cannot, and should not, be compromised.
    If confirmed, I will work closely with the Belgian 
Government to address collective security concerns. I will 
encourage our Belgian partners to move aggressively to fulfill 
their Wales Declaration commitment to spending 2 percent of GDP 
on defense by the year 2024. Working together, we can further 
strengthen communication between our law enforcement and 
counterterrorism communities, enhance NATO, and further global 
security.
    If confirmed, I hope to advance our economic interests.
    More than 900 American companies are represented in 
Belgium. In 2017, U.S. exports of goods and services to Belgium 
were $34--$35.5 billion, imports from Belgium were 20.4, 
creating a trading surplus of $15.1 billion. We are Belgium's 
largest trading partner outside the European Union. If 
confirmed, I will work with our Commerce Department and our 
embassy economics experts to further an already robust and 
successful partnership.
    And finally, if confirmed, I will work diligently to lead 
our mission team and work closely with all agencies to deepen 
our historic alliance with the Belgian Government and the 
Belgian people.
    Mr. Chairman, Ranking Member, and members of the committee, 
I thank you for the honor of appearing before you today, and I 
look forward to answering your questions.
    [Mr. Gidwitz's prepared statement follows:]


                Prepared Statement of Ronald J. Gidwitz

    Chairman Johnson, Ranking Member Murphy, and distinguished members 
of the committee, it is a tremendous honor to appear before you today 
as President Trump's nominee to be the United States Ambassador to the 
Kingdom of Belgium. For me, it is humbling that the President and 
Secretary Pompeo have confidence in me, hopefully with your approval, 
to represent the American people in engaging with a critically 
important ally in the key center of Europe.
    I would like to thank several members of my family who sit behind 
me today. First and foremost is Christina, to whom I have been married 
for almost 43 wonderful years. We have two boys, Alexander who lives in 
Australia and Scott who joins us here today. Alex is married to a 
lovely young lady, Marlien and she has recently given birth to our 
first grandson, Christopher. Scott is accompanied by his newly minted 
fiance, Mallory DeHaven. My family's love and support has been a 
constant in every phase of my life.
    During my career, I have had a multiplicity of experiences in 
government service, in the private sector as well as extensive exposure 
to the not for profit arena. In the private sector, I had the privilege 
of serving as the President and CEO of Helene Curtis, a toiletry and 
cosmetic manufacturer and marketer. When I took over, the company had 
sales of just over $100 million. When the business was sold 17 years 
later, the company was closing in on $1.5 billion and was a FORTUNE 300 
company with forty percent of its sales coming from outside of the 
country. All of the growth was generated internally. I have also served 
on a number of private sector boards of directors. One of note among 
them was American National Can, a subsidiary of the French Aluminum 
company, Pechiney.
    In the public sector I was a founding executive committee member of 
the National committee for Employer Support for the Guard and Reserve 
and served in that capacity for 10 years. In addition, I was the 
Chairman of the Economic Development Commission of the City of Chicago 
at a time when the Midwest was under great stress. I also served as 
Chairman of the City Colleges of Chicago, the second largest community 
college district in the country. As well, I served two terms as the 
Chairman of the Illinois State Board of Education. I was appointed to 
these and other public service positions by both Republicans and 
Democrats. I believe the record will show that I can work well with and 
lead organizations no matter their political stripe.
    In the not for profit world I have worked with many kinds of 
organizations from social service to cultural institutions to 
educational establishments. I have served in virtually every position 
over my 44 year tenure with the Boys & Girls Clubs of America including 
chairing the national organization as well as its Government Relations 
committee. I have served as Chairman of the Field Museum of Natural 
History as well as the Chicagoland Chamber of Commerce. In short, I 
have led large organizations and small ones, public, private and not 
for profit.
    I feel confident my past experience in government, business, and 
philanthropy has prepared me for this important opportunity to lead the 
United States Mission to the Kingdom of Belgium. If confirmed to serve 
as U.S. Ambassador, I will work closely with the teams from across the 
Government to strengthen our relationship and focus on the following 
key areas of our alliance.
    First and foremost, I will work with Belgian officials at all 
levels of government to advance American interests, protect American 
citizens and to promote American and democratic values; the freedom of 
speech, the freedom of press, and the freedom of religion are values 
that cannot and should not be compromised.
    If confirmed, I will work closely with the Belgian Government to 
address collective security concerns. I will encourage our Belgian 
partners to move aggressively to fulfill their Wales Declaration 
commitment to spend 2 percent of GDP on defense by 2024. Working 
together, we can further strengthen communication between our law 
enforcement and counterterrorism communities, enhance NATO and further 
global security.
    If confirmed, I hope to advance our economic interests in Belgium. 
More than 900 American companies are represented in Belgium. In 2017, 
U.S. exports of goods and services to Belgium were $35.5 billion. 
Imports from Belgium were $20.4 billion creating a trading surplus of 
$15.1 billion. We are Belgium's largest trading partner outside the 
European Union. If confirmed, I would work with our Commerce Department 
and our embassy economic experts to further an already robust and 
successful partnership.
    Finally, if confirmed, I will work diligently to lead our mission 
team and to work closely with all agencies to deepen our historic 
alliance with the Belgian Government and the Belgian people.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
thank you for the honor of appearing before you today and I look 
forward to answering your questions.


    Senator Johnson. Thank you, Mr. Gidwitz.
    Our last, but not least. Ms. Cherith Norman Chalet is our 
nominee to be U.S. Representative of the United Nations for 
U.N. Management and Reform and Alternate U.S. Representative to 
the Sessions of the United Nations General Assembly.
    Ms. Chalet has served as the U.N. Management and Reform 
Counselor for the U.S. Mission to the U.N. since 2014, as the 
Deputy Counselor from 2012 to 2014. She also served as a 
Special Advisor to the U.S. Mission to the U.N. from 2008 to 
2011, as a Senior Advisor in the State Department's Bureau of 
Legislative Affairs from 2003 to 2007.
    Prior to working for the State Department, Ms. Chalet was a 
staffer for Congressman Jim DeMint, in Greenville, South 
Carolina.
    Ms. Chalet.

 STATEMENT OF CHERITH NORMAN CHALET, OF NEW JERSEY, NOMINEE TO 
BE AN ALTERNATE REPRESENTATIVE OF THE UNITED STATES OF AMERICA 
TO THE SESSIONS OF THE GENERAL ASSEMBLY OF THE UNITED NATIONS, 
 DURING HER TENURE OF SERVICE AS REPRESENTATIVE OF THE UNITED 
STATES OF AMERICA TO THE UNITED NATIONS FOR U.N. MANAGEMENT AND 
REFORM AND TO BE REPRESENTATIVE OF THE UNITED STATES OF AMERICA 
TO THE UNITED NATIONS FOR U.N. MANAGEMENT AND REFORM, WITH THE 
                       RANK OF AMBASSADOR

    Ms. Chalet. Thank you, Chairman Johnson, Ranking Member 
Murphy, and distinguished members of the committee. I am 
honored to appear before you today as the President's nominee 
to serve as the Representative of the United States of America 
to the United Nations for U.N. Management and Reform.
    I am grateful to President Trump and Ambassador Haley for 
their confidence and for this opportunity.
    I am joined here today by my husband, George, whose love 
and support has been integral to me being a working mother and 
representing the United States at the U.N. for the last 10 
years; and my oldest child, Nicolai, who is already a mini U.N. 
diplomat, having participated in many U.N. meetings after 
missing Mom through--during marathon all-night negotiations. My 
other two children, my daughters, Cara and Madeleine, 
unfortunately could not join me here, as I am not sure I could 
contain their enthusiasm during the hearing, as they are 3 and 
1. I am also joined by my family, my parents, Scott and Marilee 
Norman, whose love and support provided the foundation that led 
me here today, as well as my sister, Peggy, and her daughters, 
Jaina and Annabelle, and my brother-in-law, Eli.
    Enabling the United Nations to deliver on its mandate to 
maintain international peace and security, address human rights 
and development needs is no simple task. The United States 
continues to be a champion for greater effectiveness and 
efficiency by emphasizing the need for the United Nations to 
show tangible impact and results, and by encouraging better 
ways of working.
    President Trump, Secretary Pompeo, and Ambassador Haley 
have all prioritized showing the value of the U.N. to the 
American taxpayer. This falls squarely on my shoulders, if 
confirmed, as the U.S. Representative to the United Nations for 
Management and Reform. Through my experience as the U.N. 
Management Reform Counselor for the United States Mission to 
the U.N., I have seen firsthand the value of positive reform 
and the good that can be achieved through an effectively 
managed U.N., but also the consequences when it is not 
effectively managed. For example, when we hold peacekeepers 
accountable for their performance, we see better results for 
the intended beneficiaries of peacekeeping operations.
    I will assume the job, if confirmed, at an auspicious time, 
as Secretary General Guterres' plan to the--reform the U.N. 
system is underway. This presents real opportunities to align 
the U.N.'s work on peace and security, development, and 
internal management with U.S. values and priorities. I am 
honored to work alongside Ambassador Haley, and under her 
leadership, to expand our reform efforts, including greater 
accountability and transparency, strengthened whistleblower 
protections, fiscal discipline, and making the U.N. fit for 
purpose. If confirmed, I intend to work closely with other 
member states in the General Assembly to advance these 
priorities and other issues related to sound management and 
reform.
    Thank you for this opportunity to appear before this 
committee today, and I look forward to taking your questions.
    [Ms. Chalet's prepared statement follows:]


              Prepared Statement of Cherith Norman Chalet

    Thank you, Chairman Johnson, Ranking Member Murphy, and 
distinguished members of the committee. I am honored to appear before 
you today as the President's nominee to serve as the Representative of 
the United States of America to the United Nations for U.N. Management 
and Reform. I am grateful to President Trump and Ambassador Haley for 
their confidence and for this opportunity.
    I am joined here today by my husband, George, whose love and 
support has been integral to me being a working mother and representing 
the United States at the U.N. for the last ten years, and my oldest 
child, Nicolai, who has already participated in many U.N. meetings 
after missing Mom during marathon all-night negotiations. My other two 
children--my daughters Cara and Madeleine--unfortunately could not join 
me here as I am not sure I could contain their enthusiasm during the 
hearing as they are three and one. I am also joined by my parents, 
Scott and Marilee Norman, whose love and support provided the 
foundation that led me here today.
    Enabling the United Nations to deliver on its mandate to maintain 
international peace and security, address human rights and development 
needs is no simple task. The United States is a champion for greater 
effectiveness and efficiency by emphasizing the need for the United 
Nations to show tangible impact and results, and by encouraging better 
ways of working. President Trump, Secretary Pompeo, and Ambassador 
Haley have all prioritized showing the value of the U.N. to the 
American taxpayer. This falls squarely on my shoulders, if confirmed, 
as U.S. Representative to the United Nations for Management and Reform. 
Through my experience as the U.N. Management and Reform Counselor for 
the United States Mission to the United Nations, I have seen firsthand 
the value of positive reform and the good that can be achieved through 
an effectively managed U.N. and the consequences when it is not managed 
effectively. For example, when we hold peacekeepers accountable for 
their performance, we see better results for the intended beneficiaries 
of peacekeeping operations.
    I will assume the job, if confirmed, at an auspicious time as 
Secretary-General Guterres' plan to reform the U.N. system is underway. 
This presents real opportunities to align the U.N.'s work on peace and 
security, development, and internal management with U.S. values and 
priorities. I am honored to work alongside Ambassador Haley and under 
her leadership to expand our reform efforts including greater 
accountability and transparency; strengthened whistleblower 
protections; fiscal discipline; and making the U.N. fit for purpose.
    If confirmed, I intend to work closely with other Member States in 
the General Assembly to advance these priorities and other issues 
related to sound management and reform.
    Thank you for the opportunity to appear before this committee 
today. I look forward to taking your questions.


    Senator Johnson. Thank you, Ms. Chalet.
    There has been a vote called. Senator Murphy has gone to 
vote. As soon as he gets back, I will leave and vote. But, for 
the time being, we will turn it over to Senator Flake for 
questions.
    Senator Flake. Thank you.
    I want to congratulate you all, and your families. I know 
it is a tremendous sacrifice for families to have you serve 
like this, but--and, Ron, it is good to see you here in this 
capacity.
    Mr. Gidwitz. Thank you, Senator.
    Senator Flake. And I know of your good work in Chicago.
    So, Ambassador Nichols, we had a good visit in my office 
yesterday. We all know, and if you do not, Zimbabwe is going 
through elections for the first time in about 40 years, a free 
and fair election after the departure of Robert Mugabe. So, it 
is an important time there. Can you talk about the importance? 
You are hoping to get there, I think, by the 17th of February--
or, I am sorry, of July. What is--what--why is that important? 
Why is it important for us to have an Ambassador there for the 
election time?
    Ambassador Nichols. Thank you, Senator Flake. And it is an 
honor to talk with someone who has such deep experience in the 
continent, and in Zimbabwe, in particular.
    The voice of the United States, in calling for a free, 
fair, credible election that gives the Zimbabwean people 
greater confidence in their leaders and the forcefulness with 
which we consider democracy important in Zimbabwe, is a 
priority for me and for the United States Government. Having a 
person on the ground with the full force of the President of 
the United States, as his personal representative, is vitally 
important to advance our interests. And having had the honor to 
serve as an Ambassador in the past, it is something that 
someone who does not have that investiture cannot match. And I 
certainly hope that I would be able to receive you and your 
colleagues in Zimbabwe in the future, if confirmed.
    Senator Flake. Well, thank you. I spent time in 1980s in 
Zimbabwe, and I have looked forward to this day for a long 
time, when they would have free and fair elections, and maybe 
have a post-Robert Mugabe era. And it is important, as you say. 
We have a good team there, you will find when you get there, 
but we need an Ambassador. And so, I am glad that, hopefully, 
we can get this process done and have you there. And, as they 
say in Zimbabwe, in the Shona language, mokorokoto, or 
congratulations for this.
    Ambassador Nichols. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Flake.
    Let me just kind of ask a general question of all the 
nominees. I know you covered, to a certain extent, this in your 
opening statement, but I really want to hone in on each--what 
each one of you views as your top one, two, or three 
priorities. You do not have to have three, but, you know, maybe 
just the top one, but just give you a chance to expound on it a 
little bit more.
    And I will start with you, Mr. Sondland.
    Mr. Sondland. Thank you, Senator Johnson.
    I think it is an understatement to say that the 
relationship currently between the United States and the 
European Union is tense. And one of my top priorities is to do 
a listening tour of all 28 member countries to bring the 
temperature down a little while these very delicate 
negotiations are going on over trade. Once I am through with 
that, one of my greatest priorities is to once again 
reestablish the close relationship that the EU and the U.S. 
have on a whole host of issues. When we work together, we are 
almost unstoppable as a team, and I would like to get us back 
to that place.
    Senator Johnson. Ambassador Nichols.
    Ambassador Nichols. Thank you, Mr. Chairman.
    As alluded earlier, the July 30th elections will be a 
crucial moment in Zimbabwe's history. An opportunity to have 
free, fair, credible elections will be my earliest and top 
priority there. But, there are many other challenges that 
Zimbabwe faces: profound reform to its institutions, to ensure 
the rule of law, to promote a private-sector-led economy, to 
encourage transparency and respect for human rights in its 
governance, and to give the Zimbabwean people the opportunity 
to succeed through the work of their own labor. These are 
profound challenges. These are challenges that did not arise 
overnight, and they will not be solved immediately. But, we 
must work together. And I look forward to working with you, 
sir, and your colleagues, to advance American interests in 
Zimbabwe.
    Senator Johnson. Ms. Chalet.
    Ms. Chalet. Senator, I am looking forward to building on 
the reform efforts that have been underway for a few years, but 
particularly in right-sizing the organization and continuing to 
instill fiscal discipline, as well as increasing the 
accountability and transparency. I think it dovetails very 
nicely with the Secretary General's efforts underway now, and 
we need to ensure that that becomes a reality and that we do 
increase that accountability, be it through strengthened 
whistleblower protection or addressing the terrible scourge of 
SEA, sexual exploitation and abuse, that peacekeepers and 
civilians have committed. I look forward to continuing those 
and ramping up those efforts.
    Senator Johnson. Mr. Gidwitz.
    Mr. Gidwitz. Thank you, Senator.
    Given the difficulties of the last couple of years with 
respect to attacks that have occurred in Belgium, one of my top 
priorities--in fact, my top priority--is to ensure the safety 
of the 23,000 Americans that are living in Belgium, plus the 
many tourists that come through the country on an annual basis.
    Secondly, to work with the Belgian Government and the 
Belgian agencies to strengthen the relationship and the 
multilateral programs and organizations that we share together.
    And then, thirdly, given the fact that there are 900-plus 
American corporations there, to find ways that we can build 
stronger--build on that strong relationship to bring jobs both 
to our country as well as to the country of Belgium.
    Senator Johnson. Well, thank you much.
    I will go vote. I will turn it over to Senator Murphy, and 
I will walk as fast as I can.
    Senator Murphy [presiding]. Thank you very much, Mr. 
Chairman.
    Thank you, to all of you, for joining us here today.
    Let me just get my bearings here, running back into the 
room.
    I am not actually sure what Senator Johnson asked, so I 
will, hopefully, not cover the same territory that he did. But, 
let me start with you, Mr. Gidwitz. I do not know to what 
extent you talked about some of the work we have done with 
Belgium in our multilateral relationship on counterterrorism. 
This is a very, sort of, fractured country, from a governance 
standpoint, which makes it hard, often, to communicate with 
them about what they know regarding threats against their 
country and with the Visa Waiver Program. Those are obviously 
immediate threats against the United States. In prepping for 
this job, what have you learned about the ways that we can work 
with the Government to try to enhance counterterrorism 
cooperation?
    Mr. Gidwitz. Well, the good news--thank you, Senator, for 
the question--the good news, if confirmed, I will certainly 
work with our intelligence and military folks to strengthen 
what is already an ongoing program. Prime Minister Michel 
undertook a study several years ago, once after the--several of 
the attacks took place in Belgium. And, as a result, many 
programs are currently underway. We--if confirmed, I will work 
with the U.S. Government agencies--the DEA, the FBI, and 
others--to see if we cannot continue what is an ongoing program 
to make Belgium a safer place for all of us.
    Senator Murphy. Great.
    Mr. Sondland, thank you very much for spending some time 
with me. We were able to talk privately about the mission that 
you are about to undertake. I am going to be very supportive of 
your nomination, and I thank you for taking up the job. But, as 
I mentioned privately, and I will just say it publicly, you are 
going to be asked to carry out a policy which seeks to dissolve 
the transatlantic alliance. And you may have different views, 
and, Mr. Gidwitz, you may have different views, and there have 
been many others that have gone to serve the United States in 
Europe, sitting exactly where you are sitting, who have had 
different views than that, but you are going to find out that 
the only views that really matter are the President's.
    And the President has carried out a pretty intentional and 
consistent policy of trying to undermine our alliance with 
Europe. He cheers countries that try to leave Europe. He uses 
his social media to publish really terrible, awful, 
nationalist, anti-Europe propaganda. He wants Russia to be back 
into the G7 without having done their part with respect to the 
Minsk agreement. And so, I appreciate everyone that goes into 
this administration, especially those parts that serve the 
U.S.-Europe alliance, thinking that they can change the 
President's mind. No one has been successful yet.
    And so, let me ask you, Mr. Sondland, a little bit about 
this issue over Russia, because you have been preparing for 
this job, and no doubt you have begun to have been briefed 
about what the administration policy is. I assume, given the 
President's comments as he went to the G7, that the U.S. policy 
today is for Russia to be admitted back into the G7, and that 
you will be sent to Europe to work with our G7 European 
partners to get Russia back into the G7, given the President's 
comments from a week ago. Do you understand that to be the 
policy? And do you understand that to be your mission?
    Mr. Sondland. I heard the President's comments in Canada, 
and I do not necessarily know if it is set U.S. policy. I have 
not discussed it with the President. If it were to be U.S. 
policy, then I would work to further it without minimizing the 
many, many other issues we have with Russia, including a lot of 
the activities over which we disapprove. So, you know, it is a 
walking-and-chewing-gum-at-the-same-time issue. And, again, I 
have not been briefed by the President on what his actual 
policy is, vis-a-vis the G7.
    Senator Murphy. Do you--obviously, you are not going to 
create distance with the President, but talk to the committee a 
little bit about how you plan to approach this question of the 
planned tariffs against the European Union and the retaliatory 
tariffs that they have announced and are putting together 
against the United States. How do you plan to approach what, 
right now, is an escalating trade war between the two 
countries? You said, I think, as I am reading, your top 
priority is to bring the temperature down.
    How do you do that if the President is not committed to 
that--in fact, may be committed to the opposite?
    Mr. Sondland. Well, I disagree with the premise that the 
President is trying to unwind the alliance. The President has a 
very unique negotiating style, and it is now becoming well 
known around the world how he does negotiate.
    I think that the President is also mindful of the 
importance of the relationship and the many, many other things 
which we share with the EU. And I do not agree that the 
President's goal is to unwind the relationship. I think the 
President's goal is to bring about free, fair, and equitable 
trade.
    Senator Murphy. So, if his goal is not to unwind the 
relationship or the European Union, then what do you make of 
his very close association with those that led the Brexit 
campaign and his continued association with the elements inside 
Britain that were seeking to bring that country outside of the 
European Union? That, to me, would seem a pretty deliberate 
attempt to use his power, both as a candidate and as a 
President, to try to cheer on countries that no longer want to 
be part of the European Union, and thus, be part of the 
organization to which you will be our representative.
    Mr. Sondland. I think the people of the United Kingdom made 
their own determination as to where they wanted to go, vis-a-
vis the EU relationship. I do not know that I would 
characterize the President's actions as cheerleading. And I 
also do not believe that the President is necessarily hellbent 
on dissolving the rest of the Union.
    Senator Murphy. I hear you taking issue with some of my 
opening comments to you. I will, in turn, take some issue with 
the way in which you framed your opening comments categorizing 
the President's relationship with the European Union and Europe 
over the last year and a half as being part of the normal give-
and-take. I do not actually think that you can find a period of 
time that rivals the last year and a half with respect to the 
U.S. relationship with Europe in the post-World War II era, 
which I think fairly categorizes the modern relationship 
between the continent and our country. And I really worry about 
nominees that come before this committee and try to normalize 
what is not a normal time in American foreign policy. At the 
same time, I do agree that it would be great if you could take 
the temperature down a notch.
    Let me ask you a question on a subject that I think we 
agree on, and that is the future of energy security in the 
region. Nord Stream 2 is a project that would allow for Russia 
to be able to push an enormous amount of fossil fuel product 
into Europe, bypassing Ukraine. It is bad news for Ukraine. It 
is, in the U.S.'s viewpoint, bad news for Europe to be more 
heavily reliant on Russian gas. What is your views on Nord 
Stream 2? And what do you understand is going to be your 
mission in representing the United States on this issue before 
the European Union?
    Mr. Sondland. Well, my primary mission, Senator, is to make 
sure that--and it is, again, in our selfish interest to see 
that Europe is not heavily dependent on one source of energy. 
Putting Europe in the hands of one supplier of energy, who 
could, at will, disrupt that energy flow would not be in the 
United States interest. I also believe that are various member 
countries of the EU that want to participate with various other 
suppliers of energy, including the United States, and want to 
do it through contractual means rather than through political 
means, which give them some form of security if those contracts 
are breached.
    Senator Murphy. Thank you, Mr. Sondland.
    Mr. Nichols, can you talk a little bit to us about the role 
of China in Zimbabwe? China has, you know, developed a very 
close relationship with Mugabe, and been a big investor in the 
country for a long time. It hosted Zimbabwe's new leadership 
for their, I think, first state visit. Obviously, China is 
playing a big role, you know, throughout the continent, but 
talk a little bit about this, this very big play that they have 
made, historically, and seek to continue in Zimbabwe.
    Ambassador Nichols. Thank you, Senator. And that is, 
obviously, an excellent question and a crucial issue for us.
    China has invested heavily in the extractive resources 
sector around the world. And Zimbabwe, with its extensive 
mineral wealth, is certainly no exception to that. I believe 
that private-sector-led growth for Zimbabwe is important, but I 
also think it is important that the people and Government of 
Zimbabwe receive fair and equitable treatment for their 
resources. And I hope that they are entering into a trade 
relationship with China with their eyes open and certainly 
insisting that all countries that invest in Zimbabwe respect 
the worker rights, respect environmental regulations, and do 
not allow the resources that they have to be taken without 
proper compensation. And I believe that it is incumbent upon 
the United States and our representatives around the world to 
insist on a level playing field for trade and engagement, and 
to make sure that we have an opportunity to succeed, as well.
    Senator Murphy. And the reason that China has been such a 
big player, at least part of the reason, has been because the 
United States and many other countries like us have had a 
series of sanctions on economic participation in Zimbabwe, and 
aid. And yet, many of those other donor governments are 
gradually scaling back their sanctions during this period of 
transition. And Congress is set to consider legislation that 
might modify conditions for assistance that were set out in the 
Zimbabwe Democracy and Economic Recovery Act, back in 2001. So, 
as we start to consider legislation that may scale back some of 
our restrictions, do--and as you are, sort of, learning about 
some of the ways in which we might better engage, do you have 
any thoughts or recommendations for how we might go about 
passing legislation or drafting legislation that would start to 
lighten up--start to modify those restrictions?
    Ambassador Nichols. Thank you, Senator.
    I think News ADARA sends an important signal that the 
United States remains committed to democracy, human rights, 
economic freedom, rule of law, and anticorruption efforts. The 
importance of our engagement is that we are doing so in a 
principled way. The specifics of the legislation, I do not 
think I can comment on, but I do believe that it sends a 
message of continued interest and prioritization of our 
relationship with Zimbabwe. I think it is very important, also, 
Senator, to note that we do not have comprehensive sanctions on 
Zimbabwe, and that the problems in attracting foreign 
investment from Zimbabwe are driven by the economic conditions 
there and the economic policies that their government has. We 
do not have restrictions on investments in Zimbabwe, but, 
rather, dealings with specific individuals and entities.
    Senator Murphy. Thank you very much.
    Ms. Chalet, just a couple of questions for you, and then I 
will turn it over to Senator Markey as we await Chairman 
Johnson's return.
    I wanted to talk to you about peacekeeping for a moment. 
The Trump administration has communicated its intent to reduce 
U.S. peacekeeping--our peacekeeping assessment--28 percent, 25 
percent, depending on what legislation is operative, from the 
United States Congress. Really interesting report that GAO 
published earlier this year, in which they compared the cost of 
the current U.N. peacekeeping mission in the Central African 
Republic with a hypothetical undertaking that would be done by 
the United States military. And overall, GAO found that it 
would cost the U.S. more than twice as much to carry out a 
comparable mission if it was us versus our participation in 
U.N. peacekeeping. So, how do you translate to us what the 
Trump administration's plans are on peacekeeping? And in their 
desire to reduce the American commitment, there was some 
suggestion that there might be peacekeeping operations that 
could be wrapped up without--or scaled back without any 
security detriment to the United States. Any clue as to what 
those operations may be? Have they been identified? And what do 
you make of that GAO report? You are nodding like you might be 
familiar with that report.
    Ms. Chalet. Thank you, Senator.
    I think you captured quite a number of initiatives that we 
are undertaking. I think that the commitment to U.N. 
peacekeeping, especially, is very much there by the United 
States, and we feel it is absolutely critical to our national 
security.
    In terms of looking at our assessments, we have said, and 
the President has said, that we would like to see increased 
burden-sharing by other member states. You know, the U.N. 
should not be overly dependent on one single donor. And 
Congress, like you said, through whichever operative language 
is there, has established our assessment at 25 percent, and we 
feel that that is an adequate assessment rate for the U.S., and 
we still maintain the largest contribution.
    I think, equally important to looking at the assessment 
rates and what the U.S. should pay is looking at the missions, 
themselves. And are they designed to promote political 
solutions? And Ambassador Haley outlined several principles in 
that regard. I think there are missions that are currently 
under review that fit that bill. Darfur is under review, and we 
are continuing to look at several missions with those lenses.
    But, I think looking at efficiencies at the U.N. and making 
sure that the peacekeeping missions, themselves, are operating 
in the most effective manner, is critical. And I think the GAO 
did point out the value of U.N. peacekeeping to the U.S. and 
our national security interest.
    Senator Murphy. Thank you.
    One final question, Mr. Chairman. And it is, again, to you, 
Ms. Chalet. The Bureau of International Organizational Affairs 
at State Department is obviously one that you will work very 
closely with as the liaison office between the State Department 
and the United Nations. Last week, Foreign Policy reported that 
a former food and beverage lobbyist who was appointed as a 
senior advisor there, Mari Stull, quote, ``had been quietly 
vetting career diplomats and American employees of 
international institutions to determine whether they are loyal 
to President Donald Trump and his political agenda, according 
to nearly a dozen current and former U.S. officials.'' 
According to this account, Ms. Stull is actively making lists 
and gathering intel. Reports are that the New York Times and 
the Washington Post are also working on filling in further 
details on this story.
    Two questions. One, are you personally--have you been 
personally aware of Ms. Stull's activities to apply what looked 
to be loyalty--political loyalty tests within the State 
Department and international organizations? And whether or not 
you have personal knowledge of that, what is your opinion of--
what is your thoughts on these reports and whether this 
activity is appropriate?
    Ms. Chalet. Senator, thank you for that.
    I am not personally aware of those charges. And I would 
refer you back to the State Department for that. I--what I will 
say is that the United States has long looked--or promoted 
American citizens' employment at the U.N., and we feel that it 
is an absolute priority, given our investment, but also for the 
American values that we can bring to the U.N., and the ways of 
working. And so, if confirmed, I will continue to do that. I 
will also--I think these are serious concerns that have been 
voiced. I am aware of the articles and the content of them, and 
I will work with the International Organizations Bureau to 
ensure that we are promoting the most qualified. Because we are 
running up against countries who are putting their best 
forward, as well, and we want to assure that we are adequately 
represented.
    Senator Murphy. Yeah. I guess the question is, Do you 
believe it is appropriate for the administration to apply a 
political loyalty test to U.S. employees, either at the United 
Nations or within the State Department?
    Ms. Chalet. Senator, no. I think it is--we should be 
looking at the most qualified candidates, regardless of party.
    Senator Murphy. Thank you.
    Senator Johnson [presiding]. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Sondland, North Korea is just now hoping that there 
will be a relaxation of sanctions upon them. You know, they are 
visiting China, and, ultimately, that will be their goal. How 
can we ensure that we work closely with the EU to make sure 
that not only the existing sanctions are, in fact, enforced, 
remain in place, but that we also put additional pressure on 
recalcitrant countries who have yet to participate in the--in 
that sanctions regime?
    Mr. Sondland. Good afternoon, Senator Markey. Thank you.
    Senator Markey. I think your microphone is not on.
    Mr. Sondland. Yeah, it should be.
    Senator Markey. Okay.
    Mr. Sondland. That actually, Senator Markey, is one of my 
highest priorities. Working in concert with the EU, the United 
States has the ability to create an enormous amount of economic 
damage to the North Korean economy, which creates the leverage 
needed for the President to successfully negotiate the change 
in behavior that he is trying to negotiate. And one of the--one 
of my first priorities would be to enlist the cooperation, even 
more strongly, of the EU and its member countries in that 
regard.
    Senator Markey. Okay. And, as you know, the EU's new 
privacy regime went into effect about 3 weeks ago, and they 
now, essentially, have a privacy bill of rights for everyone in 
the EU. And American companies doing business in Europe have to 
comply with that standard, which is, essentially, an opt-in 
standard that the data that is collected by companies in Europe 
not be compromised without getting permission from those 
consumers. If a company is requested--required to get a--to get 
consent in order to share European data, and also required to 
tell European consumers exactly how their data is being used, 
should that company provide American consumers with those same 
protections?
    Mr. Sondland. I believe it should.
    Senator Markey. You believe it should.
    Mr. Sondland. Yes.
    Senator Markey. Yeah. And I agree with you, that that is 
where we are heading. Europeans, obviously, suffered through 
the German invasion, the Nazi occupation, and, subsequently, 
the Soviet Union occupying much of Europe, as well. And 
identity was very important during that time, which is why I 
think there is a heightened sensitivity, because, within the 
lifetimes of family members in each one of those European 
countries, they had to, basically, try to survive based upon 
identity. And that is why all of this online information is so 
absolutely essential.
    Now, with regard to tariffs, Mr. Sondland, the EU remains 
deeply concerned about what it views as protectionist U.S. 
trade policies and President Trump's criticism of the $150 
billion goods trade deficit with the EU. In March, the Trump 
administration announced it would impose tariffs on imports of 
steel, 25 percent, and aluminum, 10 percent, from U.S. trading 
partners, following a Department of Commerce determination that 
current steel and aluminum imports threaten U.S. national 
security. And on June 1st, those tariffs went into effect. 
Could you talk about those tariffs, our relationships with the 
EU nations, and how you would suggest that we deal with this 
rift that is building based upon these tariffs?
    Mr. Sondland. Senator, in my experience in the private 
sector, tough economic negotiation between two arm's-length 
parties can often create a rift. It does not mean that it is an 
irreparable rift. It just means that you are engaged in some 
high-stakes bargaining. And, again, I refer you back to my 
earlier comments, where I believe that the President values the 
EU relationship. I believe that the United States and the EU 
share a multitude of values and a multitude of other 
relationships unrelated to the tariffs, and that is one very 
discrete segment of our relationship that is not going to be 
easy to resolve, but that is one of the jobs, if I am 
confirmed, is to work on that.
    Senator Markey. Agreed. And again, the litany is getting 
longer--climate change, the Iran deal, the European privacy 
initiative, tariffs. It is just building, issue by issue, into 
a situation. And, in my opinion, it is unnecessary, but, 
ultimately, it is a great cause for concern, because the 
Europeans are our closest allies, and we need them on other 
initiatives, as well.
    So, thank you all for your willingness to serve our 
country.
    And thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Markey.
    And I know Senator Murphy does not have any further 
questions. I am just going to follow up on my partial first 
round. So, if you have any further questions--okay.
    So, let me follow up on my first round. To remind you, I 
just asked what the top one, two, three priorities are for you 
in your new post.
    I will start with Mr. Sondland. You talked about really 
visiting all the members, going on a listening tour, which I 
think is completely appropriate. It is vitally important to 
understand, you know, other nations' perspective. Having 
listened, what will be your message, though? It will be a give-
and-take. What is going to be your message to our EU partners?
    Mr. Sondland. Our message, Senator, is that, while we value 
the relationship, there are problems with the relationship that 
need to be resolved. And we can be respectful of the 
relationship, we can appreciate those areas in which we agree, 
but the relationship, in its totality, is not hunky-dory. And 
there are some tough conversations that need to be had in order 
to advance America's interests. So, that is part of the 
discussion.
    Senator Johnson. I know, for my part, and, I think, Senator 
Murphy, as well, we meet with an awful lot of representatives 
from individual companies as well as from the EU, and we 
certainly are reinforcing the fact that, you know, the 
relationship, the alliances, are strong, they will remain 
strong as far as the eye can see from our standpoint.
    And that is extremely part of that message.
    Ambassador Nichols, you talked about, obviously, the 
importance of the July 30th election, but then talked about the 
importance of reform, rule of law, which, you know, we see 
repeatedly, you know, in our dealings, you know, particularly 
in Eastern Europe. Overcoming the legacy of--in Europe, it is, 
you know, the corruption of Soviet era, that type of thing. It 
is very difficult to do. What do you think is the greatest risk 
to Zimbabwe in establishing the rule of law? What is going to 
be the greatest impediment?
    Ambassador Nichols. Thank you, Mr. Chairman.
    President Mnangagwa has talked about the need for profound 
reform in his country. And he is absolutely right.
    In terms of the challenges, they are many. It is hard to 
signal just one. Clearly, the professionalization and 
transparency of the security forces is very important, and 
insisting upon the rule of law, looking at the past corruption 
in the country, dealing with the human rights abuses of the 
past through a truth and reconciliation process, are just some 
of the issues that need to be addressed for Zimbabwe to be able 
to move forward. And I know that, across Zimbabwe in society, 
people understand and are talking about those issues, and 
moving in that direction. Both President Mnangagwa as well as 
opposition alliance candidate Chamisa have signaled those 
issues as priority ones. And we look forward to working with 
Zimbabwe, after a free, fair, and transparent election, to 
address those challenges.
    Senator Johnson. It is really an optimistic time period. 
How optimistic are you?
    Ambassador Nichols. The Government of Zimbabwe has said 
many of the right things, and done some of the right things. I 
believe that we have to be clear-eyed in our approach and hold 
them to their own commitments and standards: the 2013 
constitution, their commitments regionally with SADC, in terms 
of their commitments to respect human rights and democracy, as 
well as their commitments within the African Union, and 
obviously the broader international community. I believe that 
this is a great opportunity, and I hope that the Government of 
Zimbabwe will live up to its commitments.
    Senator Johnson. Ms. Chalet, as long as I have been reading 
a newspaper, we have been talking about U.N. reforms. 
Obviously, that is your top priority. What do you think is the 
single biggest impediment to reform of the U.N.?
    Ms. Chalet. I----
    Senator Johnson. Or impediments. You--I mean, you talked 
about whistleblower protections, but, I mean, what are the main 
problems?
    Ms. Chalet. To say the single most impediment, I think it 
is the political will of other countries in reaching that 
common understanding and agreement on those reforms. I think 
there are cultural impediments within the U.N. bureaucracy, in 
just changing mindsets and showing that business has to be done 
differently. And I think those are primarily the impediments 
that I face on a day-to-day basis.
    Senator Johnson. In a short period of time, how do you 
overcome that?
    Ms. Chalet. It is through constant engagement and promoting 
our position and our values, and the priorities that we place 
on the U.N. I think that, interestingly, the rising rates of 
contributions of member states have changed that mindset, in a 
sense. I have seen more countries that are more attuned to 
budget discipline than they have been in the past. There will 
be differences of opinion, and there are, but, if confirmed, I 
will continue to work to promoting those, on human rights and 
other areas that we will--that fundamentally and 
philosophically face differences with some countries.
    Senator Johnson. So, as we discussed in my office, I think, 
you know, the power of an anecdote, of examples, is powerful. 
And so, I certainly want to work with you, whether it is in 
this committee or as Chairman of Homeland Security, to 
highlight those examples of corruption or, you know, waste, 
fraud, and abuse that need to be reformed, because I think that 
is probably the best way to try and overcome those impediments.
    Finally, Mr. Gidwitz, you said that your top priority is 
safety of Americans, which I agree with. And then Senator 
Murphy apparently talked to you about CT--counterterrorism 
programs, and just cooperation. I would kind of like to hear 
your answer. I am going to listen--I am going to read the 
record, because I was out, but just, you know, talk about how 
important it is for us to cooperate with Belgium. They are in a 
unique situation. I know Brussels actually shut down, not 
because of terrorist acts, but because of a threat of terror.
    Mr. Gidwitz. Well, not only that, Senator--and thank you 
very much--but, they have had, since 2014, troops on the street 
to augment the police force that--because of the concern that 
they have had. The good news is that they have taken 
significant numbers of those police--those military forces off 
the street in the last few months. But, it remains to be a 
problem, but it is a problem in which--it is diminishing, in 
the sense that the working of the intelligence organizations 
together seems to be bearing some fruit. I mean, there is a 
couple of short-term--I should not say ``short-term''--some 
serious problems. We have got an Embassy, for example, both the 
U.S. bilateral Embassy as well as the EU Embassy is on a busy 
street. And so, from a relatively tactical issue, we need to 
better protect our diplomats and people that are working 
directly for the State Department and other agencies. That is a 
short-term issue that needs to be addressed.
    The longer-term problem, of course, is, as Senator Murphy 
had suggested, How do we get the various intelligence agencies 
to work together at several levels of government? Because the 
Belgian Government is relatively complex, with security 
decisions being made both at the national level, at the 
regional level, and some community levels. And to get that 
coordinated takes a lot of engagement by a lot of people. And 
that is one of the things, should I have the privilege of 
representing the United States, I will work very hard to get 
done.
    Senator Johnson. Okay. Well, we will certainly want to 
support your efforts.
    Again, I want to thank all the nominees for your testimony, 
but your willingness to serve. Thank you your families for 
their sacrifice, too, in these--you know, as you work in these 
very important positions.
    With that, the hearing record will remain open for 
statements or questions for the record until the close of 
business on Friday, June 22nd.
    This hearing is adjourned.


    [Whereupon, at 3:35 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
                Brian Nichols by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have worked to promote democracy, the rule of law and 
human rights throughout my nearly 30-year Foreign Service career. 
Earlier this year in Honduras, as Charge, I successfully advocated for 
the arrest of the alleged mastermind in the murder of human rights 
activist Berta Caceres, raising the case repeatedly with the President 
and Attorney General. I met with Ms. Caceres' family and publicly urged 
action in the case. I also traveled some four hours overland to attend 
a memorial service in her honor; again urging action in the case. In 
Peru, when I was Ambassador, we worked tirelessly to support the 
investigation into the 2015 murder of Asheninka leader Edwin Chota and 
three other indigenous community leaders seeking to prevent illegal 
logging on their land. We provided helicopter support to the 
investigation and I met with Chota's widow and daughter. My colleagues 
and I regularly raised the case at the highest levels of Peru's 
Government. Our efforts have led to stricter enforcement of Peruvian 
laws against illegal logging.
    As a Political Officer in El Salvador in 1992, I reported on the 
peace process, cease fire, and truth and reconciliation process, and 
served as a U.N. election monitor for El Salvador's 1994 election. In 
Mexico, as Deputy Political Counselor, I took the lead in the U.S. 
contacts with Mexico's Federal Electoral Institute (IFE) during the 
historic 2000 election which saw the end of 71 years of one party rule. 
My close cooperation with IFE officials provided valuable insights into 
the reforms carried out to make the process free and fair. I helped to 
frame our messaging to the Mexican Government at the highest level that 
insisted on the importance of a transparent election. In Indonesia, as 
Political Counselor, I directed our efforts to promote comprehensive 
respect for human rights in the face of serious violations in Aceh, 
Sulawesi, and Irian Jaya (West Papua). Our efforts led to significant 
reforms in the security forces, as well as renewed peace talks between 
the Government and the Free Aceh Movement (GAM).

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Zimbabwe in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. Zimbabwe is at a crucial moment. We are hopeful the new 
government will improve the human rights situation in Zimbabwe. We 
strongly believe that all Zimbabweans should enjoy constitutionally 
guaranteed fundamental freedoms, including freedoms of expression and 
peaceful assembly, consistent with Zimbabwe's international human 
rights obligations, and that no person should suffer from harassment or 
intimidation for exercising these freedoms.
    The principal human rights abuses committed during the Mugabe era, 
and most recently documented in the State Department's 2017 Country 
Report on Human Rights Practices, included the following:

  <diamond> The Government targeted members of political parties and 
        civil society activists for abduction, arrest, torture, abuse, 
        and harassment.
  <diamond> Security forces and the judiciary applied the rule of law 
        in a partisan manner and the Government generally failed to 
        investigate or prosecute state security or ZANU-PF supporters 
        responsible for violence.
  <diamond> The Government arrested, detained, prosecuted, and harassed 
        members of civil society, including members of nongovernmental 
        organizations (NGOs) and further restricted freedoms of 
        expression, press, assembly, association, and movement.
  <diamond> Although there were no reports the Government or its agents 
        committed extrajudicial killings in 2017, in contrast with past 
        years, impunity continued to be a problem, and the Government 
        only took limited steps to investigate or punish security-
        sector officials and ruling party supporters believed to have 
        committed crimes.

    We have been encouraged by the positive language of President 
Mnangagwa, including his calls for free and fair elections, and by some 
increase in freedoms of speech and assembly in the lead-up to the July 
30 election. However, we will be looking for the Government to 
implement tangible and sustained reforms on human rights and governance 
issues moving forward, including aligning Zimbabwe's laws with the 2013 
Constitution and implementing a process of national peace and 
reconciliation.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Zimbabwe? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Zimbabwe's 2013 constitution guarantees human rights and 
fundamental freedoms to all, including the rights to freedom of 
expression, association and peaceful assembly. However there are still 
laws in effect in Zimbabwe which contradict these protections. 
Similarly, Zimbabwe's constitution guarantees its citizens the right to 
choose their leaders through free and fair elections, to form, join, 
and participate in political parties or organizations of their choice, 
and to campaign freely and peacefully for a political party or cause. 
Yet, the country's past several elections have instead been marked by 
widespread state-sponsored violence and intimidation. If confirmed, I 
would seek to hold the Government of Zimbabwe to the requirements of 
its constitution, and support those in Zimbabwe who are doing the same.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Throughout my career, I have worked to ensure that we use 
our assistance programs as effectively and efficiently as possible for 
the benefit of our partners and the American people. During my first 
assignment as a political officer in El Salvador in the early 1990s, I 
quickly learned of the value of USAID's democracy and governance 
programing in building a stronger, more resilient democracy--
particularly in post conflict societies. In several of my previous 
posts, we deployed democracy, governance, and public diplomacy 
programming to support civil society, political parties, and 
parliamentary institutions. As Principal Deputy Assistant Secretary in 
the Bureau of International Narcotics and Law Enforcement, I helped 
lead efforts to build stronger rule of law and administration of 
justice institutions, often partnering with civil society around the 
world.
    In Zimbabwe, I understand that our assistance aims to improve 
accountable and democratic governance that serves an engaged citizenry. 
If confirmed, the direction I will give to our programming depends on a 
range of reforms--economic, human rights, and good governance, which 
includes free, fair and credible elections--and the resources 
available. If Zimbabwe makes significant progress on all of these 
reforms, and if I am confirmed, I hope to broaden the scope for 
citizen-state engagement to elevate citizen action and influence. This 
would include engagement with targeted independent government 
commissions, including those that respond to human rights and 
transitional justice initiatives.
    If confirmed, I will continue the critical programming that 
supports the Zimbabwean people by expanding assistance to civil society 
in order to prevent deterioration and closing of social and political 
space.
    In addition, if confirmed, I will instruct our Public Affairs 
office to utilize the full arsenal of exchange and outreach programs to 
strengthen democratic institutions and build the professional capacity 
of state-run media and others who can influence good governance.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Zimbabwe? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes I will, if confirmed, as I have done throughout my 
career. As a Political Officer in El Salvador in the 1990s, I met with 
human rights organizations from El Salvador and the United States and 
advocated for the respect for human rights with the Salvadoran 
Government. In Mexico as Deputy Political Counselor, I traveled to 
Chiapas regularly to meet with human rights groups, indigenous 
organizations and the Catholic Church as well as the Mexican Government 
to advocate for a resolution to the Zapatista conflict as well as 
respect for the human rights of the people of Chiapas. I look forward 
to continuing such outreach in Zimbabwe if I am confirmed.
    Regarding measures that restrict or penalize NGOs and civil society 
via legal or regulatory measures, if confirmed, I will urge the 
Zimbabwean Government to increase political space for all stakeholders. 
I will seek ways to strengthen judicial independence and capacity to 
uphold Zimbabwe's constitution, which enshrines democratic rights. I 
will also continue the Mission's work to provide institutional and 
individual support for democratic rights through a number of civil 
society and human rights organizations that advocate for legal and 
regulatory reforms. At the same time, I will continue to ensure that 
through our programming, individual psycho-social, medical and legal 
support is provided to victims of violence, and support is given to 
communities to help rebuild social cohesion after decades of state-
sponsored violence.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes I will, if confirmed, as I have done throughout my 
career. In Peru, as Ambassador, I met with parties from across the 
political spectrum throughout my assignment. As Political Counselor in 
Indonesia, I joined Ambassador Boyce as the two U.S. representatives at 
renewed peace talks in Tokyo. We guided democratic strengthening 
efforts for Indonesia's political parties and its parliament. I 
directed electoral observation efforts for the United States that 
included participation by Embassy officers as well as partnerships with 
U.S. civil society including former President Jimmy Carter as head of 
Carter Center delegation. The elections were generally considered free 
and fair.
    In Zimbabwe, the most immediate test of the Government's openness 
to genuine political competition is the upcoming July 30 election. 
However, even after that election I will, if confirmed, continue to 
direct our Embassy to engage with all democratic parties in Zimbabwe 
and advocate for inclusivity and democracy within party structures.

    Question 7. Will you and your Bureau leadership team actively 
engage with Zimbabwe leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Zimbabwe?

    Answer. Yes, our founders knew that freedom of the press is 
essential to democracy. If confirmed, I will urge the Zimbabwean 
Government to uphold the tenets of its 2013 constitution, which 
enshrines freedom of express and the press. As Ambassador to Peru, I 
met with press frequently and expect to continue to do so, if confirmed 
as Ambassador to Zimbabwe.
    In Zimbabwe, if confirmed, my embassy team and I will actively 
engage on a regular basis with state-run and independent media while 
vigorously addressing any attempts to undermine or limit press freedom 
or control media content. I will also instruct the embassy team to 
utilize all methods at its disposal to build professional capacity 
within media institutions and to raise awareness therein of how a free 
media should perform.
    I will also, if confirmed, advocate for increasing media freedom in 
Zimbabwe and, the eradication of violence and harassment against 
journalists, and encourage the Government of Zimbabwe to be more open 
and accommodating for international media looking to cover stories in 
the country.

    Question 8. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. Yes. Misinformation and disinformation challenges have 
already arisen in the context of the Zimbabwe elections, though likely 
from domestic sources. If confirmed, I will continue our Mission's 
support for digital and information security, which has already proven 
valuable in preparing civil society partners to respond by correcting 
the record and to safeguard systems.

    Question 9. Will you and your Bureau leadership team actively 
engage with Zimbabwean interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. Yes, if confirmed, we will. I was honored to meet with 
trade union leaders regularly in my previous assignments. This issue is 
especially important in Zimbabwe, where labor unions have historically 
played a key role in advocating for broader fundamental human rights in 
addition to worker rights. As documented in the 2017 Country Report on 
Human Rights, the Government of Zimbabwe--during the Mugabe era--failed 
to respect the workers' right to form or join unions, strike, and 
bargain collectively. The Government's interference with trade union 
activity was common, with police and state intelligence services 
regularly attending and monitoring trade union activities and 
authorities frequently withholding or delaying the registration 
certificate for a number of unions. Given this history and the 
concerning treatment of health practitioners by the Government during a 
health workers' strike in April, I will, if confirmed, continue to 
direct our Embassy to actively engage with Zimbabwe on the right of 
labor groups to organize.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Zimbabwe, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTI) people face 
in Zimbabwe? What specifically will you commit to do to help LGBTI 
people in Zimbabwe?

    Answer. Yes, I have advocated for the human rights and dignity of 
all persons, including the LGBTI community throughout my career. As 
Ambassador to Peru, I attended and hosted events that highlighted the 
importance of inclusion and human rights for the LGBTI community. In 
Zimbabwe, hostility toward LGBTI people was famously reflected in 
former President Mugabe's statements that homosexuality is ``un-
African'' and that homosexuals are ``worse than dogs and pigs.'' While 
President Mnangagwa has not engaged in such rhetoric since coming to 
power, discrimination against LGBTI people remains widespread in 
Zimbabwe. As detailed in the State Department's 2017 Country Report on 
Human Rights Practices, the Zimbabwean police have reportedly detained 
and held persons suspected of being gay for up to 48 hours before 
releasing them. LGBTI advocacy groups have reported that police used 
extortion and threats to intimidate persons based on their sexual 
orientation, and an organization dedicated to advancing the rights of 
LGBTI persons, experienced harassment and discrimination.
    If confirmed, I will ensure that support for the rights of LGBTI 
persons continues to be incorporated into the Embassy's support for 
human rights more broadly.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Brian Nichols by Senator Benjamin L. Cardin

U.S. Commitment to Human Rights
    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have worked to promote democracy, the rule of law and 
human rights throughout my nearly 30-year Foreign Service career. 
Earlier this year in Honduras, as Charge, I successfully advocated for 
the arrest of the alleged mastermind in the murder of human rights 
activist Berta Caceres, raising the case repeatedly with the President 
and Attorney General. I met with Ms. Caceres' family and publicly urged 
action in the case. I also traveled some four hours overland to attend 
a memorial service in her honor; again urging action in the case. In 
Peru, when I was Ambassador, we worked tirelessly to support the 
investigation into the 2015 murder of Asheninka leader Edwin Chota and 
three other indigenous community leaders seeking to prevent illegal 
logging on their land. We provided helicopter support to the 
investigation and I met with Chota's widow and daughter. My colleagues 
and I regularly raised the case at the highest levels of Peru's 
Government. Our efforts have led to stricter enforcement of Peruvian 
laws against illegal logging.
    As a Political Officer in El Salvador in 1992, I reported on the 
peace process, cease fire, and truth and reconciliation process. I met 
with human rights organizations from El Salvador and the United States 
and advocated for the respect for human rights with the Salvadoran 
Government. In Mexico, as Deputy Political Counselor, I traveled to 
Chiapas regularly to meet with human rights groups, indigenous 
organizations and the Catholic church as well as the Mexican Government 
to advocate for a resolution to the Zapatista conflict as well as 
respect for the human rights of the people of Chiapas. I took the lead 
in the U.S. contacts with Mexico's Federal Electoral Institute (IFE) 
during the historic 2000 election which saw the end of 71 years of one 
party rule. My close cooperation with IFE officials provided valuable 
insights into the reforms carried out to make the process free and 
fair. I helped to frame our messaging to the Mexican Government at the 
highest level that insisted on the importance of a transparent 
election. In Indonesia, as Political Counselor, I directed our efforts 
to promote comprehensive respect for human rights in the face of 
serious violations in Aceh, Sulawesi, and Irian Jaya (West Papua). Our 
efforts led to significant reforms in the security forces, as well as 
renewed peace talks between the Government and the Free Aceh Movement 
(GAM).

    Question 2. What are the most pressing human rights issues in 
Zimbabwe? What are the most important steps you expect to take-if 
confirmed-to promote human rights and democracy in Zimbabwe? What do 
you hope to accomplish through these actions?

    Answer. Zimbabwe is at a crucial moment. We are hopeful the new 
government will improve the human rights situation in Zimbabwe. We 
strongly believe that all Zimbabweans should enjoy constitutionally 
guaranteed fundamental freedoms, including freedoms of expression and 
peaceful assembly, consistent with Zimbabwe's international human 
rights obligations, and that no person should suffer from harassment or 
intimidation for exercising these freedoms.
    The principal human rights abuses committed during the Mugabe era 
and most recently documented in the 2017 Country Report on Human Rights 
included the following:

  <diamond> The Government targeted members of political parties and 
        civil society activists for abduction, arrest, torture, abuse, 
        and harassment.
  <diamond> Security forces and the judiciary applied the rule of law 
        in a partisan manner and the Government generally failed to 
        investigate or prosecute state security or ZANU-PF supporters 
        responsible for violence.
  <diamond> The Government arrested, detained, prosecuted, and harassed 
        members of civil society, including members of nongovernmental 
        organizations (NGOs) and further restricted freedoms of 
        expression, press, assembly, association, and movement.
  <diamond> Although there were no reports the Government or its agents 
        committed extrajudicial killings in 2017, in contrast with past 
        years, impunity continued to be a problem, and the Government 
        only took limited steps to investigate or punish security-
        sector officials and ruling party supporters believed to have 
        committed crimes.

    The Zimbabwe Democracy and Economic Recovery Act of 2001 and the 
executive orders that lay the groundwork for our targeted sanctions are 
useful tools of foreign policy, particularly as Zimbabwe is currently 
particularly focused on gaining legitimacy, rejoining the international 
community, acquiring new lending and debt relief from the international 
financial institutions. If confirmed, I will use these tools to push 
for needed reforms. I will urge the Zimbabwean Government to fulfill 
its obligations under the nation's 2013 constitution as well as its 
commitments as a member of the Southern African Development Community 
(SADC) and the African Union. Finally, I look forward to robust 
engagement with the full range of Zimbabwean society, particularly 
civil society. I will continue our efforts to support civil society, 
build more accountable institutions, and help Zimbabweans realize their 
democratic aspirations.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Zimbabwe in 
advancing human rights, civil society and democracy in general?

    Answer. Zimbabwe's 2013 constitution guarantees human rights and 
fundamental freedoms to all, including the rights to freedom of 
expression, association and peaceful assembly. However there are still 
laws in effect in Zimbabwe which contradict these protections. 
Similarly, Zimbabwe's constitution guarantees its citizens the right to 
choose their leaders through free and fair elections, to form, join, 
and participate in political parties or organizations of their choice, 
and to campaign freely and peacefully for a political party or cause. 
Yet the country's past several elections have instead been marked by 
widespread state-sponsored violence and intimidation. If confirmed, I 
would seek to hold the Government of Zimbabwe to the requirements of 
its constitution, and support those in Zimbabwe who are doing the same.
    In addition, Zimbabwe has significant episodes in its history of 
state-sponsored violence and human rights abuses, including the 
Gukurahundi massacres of the 1980s and the ``Operation Restore Order'' 
slum clearances of the 2000s, for which there has never been a full 
accounting. If confirmed, I would support efforts to advance a national 
peace and reconciliation process to enable the country to fully address 
and come to terms with past episodes of violence.

    Question 4. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the United States 
and with local human rights NGOs in Zimbabwe? If confirmed, what steps 
will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Yes, I have engaged with human rights, civil society, 
religious and other NGO organizations at home and abroad and look 
forward to doing so in Zimbabwe. I am committed to supporting the Leahy 
Law fully, as I have done in all my previous assignments. If confirmed, 
as Ambassador, I will direct my staff to ensure all security assistance 
and security cooperation activities receive Leahy and other vetting to 
reinforce human rights. The Government of Zimbabwe, however, would need 
to implement meaningful human rights, economic, governance, and 
electoral reforms, before full military-to-military relations were 
restored.

    Question 5. Will you and your embassy team actively engage with 
Zimbabwe to address cases of key political prisoners or persons 
otherwise unjustly targeted by Zimbabwe?

    Answer. Yes. If confirmed, my team and I will work hard to ensure 
that the rule of law is respected in Zimbabwe. I will ensure my team 
actively engages with the Government of Zimbabwe regarding political 
prisoners and others unjustly targeted. I will continue to advocate for 
the respect of fundamental human rights, and advocate for all persons 
to receive timely, fair, equitable access to justice.

    Question 6. Will you engage with Zimbabwe on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. I have done so throughout my career and if confirmed 
will continue to do so in Zimbabwe.
Conflicts of Interest
    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?
    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Zimbabwe?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?
    Answer. Diversity and inclusion are priorities for the Secretary of 
State and the Department. As an Ambassador, Deputy Chief of Mission, 
and Principal Deputy Assistant Secretary (PDAS), I have worked actively 
to recruit, hire, and mentor a diverse group of people both U.S. Direct 
Hire employees and Locally Engaged Staff. I am proud to have led 
efforts to include gender and diversity goals as a component of justice 
sector development as PDAS in the Bureau of International Narcotics and 
Law Enforcement. In Colombia and Peru, I led efforts to hire more 
diverse local staff and recruit from Afro-descendant and indigenous 
organizations. As a mid-level officer, I went to underrepresented 
organizations to recruit more diverse candidates for the Foreign 
Service. As one of the most senior African Americans in the Foreign 
Service, I consider it a duty and a privilege to recruit and mentor a 
broad range of officers, as well as serving on promotion boards (which 
I am doing right now).

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?
    Answer. As called for in the Department's precepts, I will 
cultivate an environment that values diversity and respect for EEO and 
merit principles. I will model those behaviors and insist that all 
those under my direction hold themselves to the highest standard in 
accordance with Department regulations and the law.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Brian Nichols by Senator Cory A. Booker

What Does State Need To See for Credible Elections?
    Question 1.  The July 30th elections are an historic moment for 
Zimbabwe. Robert Mugabe, who ruled the country for 37 years, will not 
be on the ballot.
    But these elections are fraught with concerns over technical issues 
like the quality of the voter roll and the looming threat of military 
interventions to protect long-held interests.

   What, in your view, are the most important actions the Government 
        of Zimbabwe should take to ensure fair and credible elections 
        on July 30th?

    Answer. Some of the steps that the Government of Zimbabwe has 
already taken have been positive ones. For example, President 
Mnangagwa's public commitment to free, fair and peaceful elections is 
welcome, as is his invitation of international observers for the first 
time in over a decade, and the opening of political space for free 
speech and assembly that has been observed. However, the United States 
continues to have concerns in many areas, including:

  <diamond> a lack of transparency of the voters' roll and ballot 
        papers,
  <diamond> the lack of precise rules for tallying votes and 
        transmitting results,
  <diamond> credible reports of voter intimidation by traditional 
        leaders and government officials, including security officials,
  <diamond> the need for fair and equal state media access--
        particularly radio--for all parties,
  <diamond> the independence of the Zimbabwe Electoral Commission,
  <diamond> an electoral law that falls short of ensuring the rights 
        enshrined in Zimbabwe's own constitution, and
  <diamond> the lack of public assurances from the Government, 
        especially the military, that they will accept the outcome.

    The credibility of the election will depend upon how the Zimbabwean 
Government addresses these concerns, among others.
What Do You Need To Do Your Job?
    Question 2. If confirmed, you face a daunting task--you will likely 
be arriving just a couple weeks before the election and will have to 
get up to speed quickly, meet with the relevant stakeholders, and 
ensure that the U.S. is able to assess the credibility of the upcoming 
elections.

   What tools or resources do you believe you need to be able to be 
        effective in short order?

    Answer. We have a very strong team at the U.S. Embassy in Harare. I 
look forward to joining them if confirmed. The Government of Zimbabwe 
has indicated that, if confirmed, I will be able to present my 
credentials shortly after arrival, which will allow me to meet with all 
the relevant stakeholders.
    The U.S. Embassy in Zimbabwe is already deeply engaged in the 
preparations for the elections, and will be directly involved in 
several ways. If confirmed, I will continue the important work already 
underway to support the credibility of upcoming elections. This 
includes supporting the embassy staff in Zimbabwe who will be serving 
as observers on Election Day, and who have already been monitoring and 
reporting on the pre-electoral environment and communicating our 
concerns to the Government of Zimbabwe. In addition, if confirmed, I 
will continue to support the work of an independent observation mission 
jointly led by respected, experienced NGOs. An advance team from this 
mission recently visited Zimbabwe and has reported on the election 
preparations and environment to date, and will send additional 
observers for the election itself. The Mission is working closely with 
the Bureau of Diplomatic Security to ensure that it has the necessary 
security and resources to observe around the country.
    Most importantly, if confirmed, I will continue to support the 
growth and capacity of Zimbabwean civil society organizations, which 
ultimately play the greatest role in building Zimbabwe's democratic 
institutions. Even after Election Day, the United States will continue 
to facilitate Zimbabwe's transition to a true democracy by continuing 
to support such groups.
Normalizing Relations with the UK
    Question 3. In multiple conversations during a recent CODEL to 
Zimbabwe, there were several indications that the British Government is 
more than ready to look past President Mnangagwa's human rights record 
and normalize relations with Zimbabwe.

   How do you intend to work with our allies to continue pressure on 
        President Mnangagwa if the election is not credible?

    Answer. The United States works closely with the United Kingdom, 
Australia, the European Union, and other partners in Harare and in our 
respective capitals to coordinate our responses to developments on the 
ground. If confirmed, I will continue these consultations, and seek to 
sustain broad agreement that any changes in the international 
community's engagement with the Government of Zimbabwe should be linked 
to concrete, specific progress on democratic governance, human rights, 
rule of law, and economic reforms.
    Ultimately, however, the United States will make its own decisions 
about our relationship with the Government of Zimbabwe. That will 
include assessing the elections based on Zimbabwe's international 
obligations as well as the requirements set out in Zimbabwe's own 
constitution, and clearly communicating our views.

Reconciliation for Past Atrocities
    Question 4. Perpetrators of the brutal cleansing of political 
opposition in Matabeleland region in the 1980s--in which 20,000 people 
were killed--still have not been held accountable.
    President Mnangagwa was formerly the Director of the Central 
Intelligence Organization in the 1980s, and is accused by many, 
including opposition parties and human rights groups, of directing 
brutal violence.

   What do you think the Government of Zimbabwe should do to advance 
        truth-telling, reconciliation and justice?

    Answer. Zimbabwe's 2013 constitution established the National Peace 
and Reconciliation Commission, which has become more active since 
President Mnangagwa came to power last year. In January, President 
Mnangagwa signed the National Peace and Reconciliation Act, which 
operationalized the Commission. In February, he appointed a new 
chairperson to the Commission, a position that had been vacant for more 
than a year. The commissioners then conducted consultations across 
Zimbabwe in February and March. Beyond these positive steps, tremendous 
work still lies ahead, including investigation and prosecution where 
warranted of those responsible for human rights abuses, compensation 
for victims of past political violence, and protection of survivors of 
political violence.
    If confirmed, I would support the efforts that the National Peace 
and Reconciliation Commission is currently leading, to enable the 
country to fully address and come to terms with episodes in its past.

    Question 5. What can the United States do to encourage the 
Government of Zimbabwe to make genuine strides in a national discussion 
or reckoning on a painful and violent political history?

    Answer. I am well aware of, and deeply concerned by, the Government 
of Zimbabwe's record on human rights. In addition to the events of the 
1980s, there were the ``Operation Restore Order'' slum clearances of 
the 2000s, for which there has never been a full accounting, and the 
fact that the country's past several elections have been marked by 
widespread state-sponsored violence and intimidation. While the United 
States cannot, and should not, forget the past, we can remain open to 
engaging with those Zimbabweans who are willing to work towards a 
better future. Ultimately, we will judge President Mnangagwa by his 
actions, not just his words.
    In addition to supporting Zimbabwe's National Peace and 
Reconciliation Commission, I will, if confirmed, press the Government 
of Zimbabwe to bring its current laws into compliance with Zimbabwe's 
2013 constitution, which enshrines democratic rights. I will seek ways 
to strengthen judicial independence and the judiciary's capacity to 
uphold Zimbabwe's constitution, and continue the Mission's work to 
provide institutional and individual support for democratic rights 
through a number of civil society and human rights organizations that 
advocate for legal and regulatory reforms. More broadly, I will 
continue to ensure that, through our foreign assistance programs, 
individual psycho-social, medical and legal support is provided to 
victims of violence, and support is given to communities to help 
rebuild social cohesion after decades of state-sponsored violence.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Gordon D. Sondland by Senator Robert Menendez

    Question 1. If confirmed, how will you seek to curb democratic 
backsliding and support respect for human rights in EU member states?

    Answer. It is in both the United States' and the European Union's 
(EU) interests for democracy to thrive within the EU and the region. 
The reliability of rule of law is essential to economic activity, 
trade, and investment. U.S. officials regularly speak with allies about 
our shared commitment to Western values. If confirmed, I will pay close 
attention to developments across the EU in areas such as democracy, 
human rights, and rule of law, and will be prepared to speak 
privately--and publicly if necessary--on the importance of maintaining 
shared commitments to Western values.

    Question 2. How will you work with EU partners to strengthen 
efforts on the continent, and cooperation with U.S. Government 
agencies, to address corruption and illicit financial activity?

    Answer. Both the United States and the European Union (EU) believe 
that transparency is a fundamental pillar of democracy. If confirmed, I 
will lead the interagency teams at the United States Mission to the EU 
in continuing to support our efforts to combat corruption and illicit 
financial activities. I would work closely with the EU to expand our 
efforts to tackle corruption by addressing the root causes in Europe 
and around the world.

    Question 3. How will you engage in Brussels to help ensure that 
core human rights and democratic principals are upheld as the EU 
grapples with terrorism, migrant flows, and rising xenophobia within 
the bloc?

    Answer. The rise of terrorist attacks and the large influx of 
migrants and asylum seekers to Europe over the past several years 
helped fuel the rise of populist and extremist political parties across 
the continent. Many of these parties share xenophobic, anti-Muslim, 
anti-Semitic, and anti-Roma policies and rhetoric, undermining efforts 
to build inter-ethnic and inter-religious tolerance. The United States 
works with the European Union (EU) to advance common goals; engage in 
bilateral democracy and rule of law dialogues; actively support human 
rights defenders and civil society; combat anti-Semitism and other 
forms of intolerance; foster inclusion; and promote the human rights of 
vulnerable minorities, including the Roma population.
    If confirmed, I will lead the United States Mission to the EU in 
continuing to support our longstanding efforts to ensure the rights of 
all people are protected, and promote values of freedom, democracy, 
individual liberty, and human dignity. I would work closely with the EU 
to advance democracy and human rights in the European Union and around 
the world in places such as Cuba, Burma, and Venezuela.

    Question 4. What role do you see for yourself, if confirmed, and 
the U.S. Mission to the EU, to support these efforts and encourage the 
prospective member countries to undertake difficult reforms?

    Answer. The United States continues to work closely with the 
European Union (EU) to assist Balkan Governments accelerate much needed 
economic and political reforms, especially those that strengthen 
democratic institutions, rule of law, which will build resilience 
against malign influence. The U.S. Government welcomes the emphasis of 
the European Commission's Western Balkans Strategy that all six 
countries have a future in the EU, should they meet the requirements. 
The United States remains convinced that a Turkey that meets EU 
accession criteria would benefit the EU, Turkey, and the region as a 
whole. If confirmed, I am ready to support U.S. policies in any way I 
can.

    Question 5. How will you work to foster continued support with the 
EU for maintaining its existing sanctions regime against the Russian 
Government? How will you engage EU counterparts to build support for 
new or expanded sanctions against Kremlin bad actors, particularly in 
the cyber realm?

    Answer. Since 2014, the United States and the European Union have 
imposed sanctions on Russia in response to its aggression in Ukraine, 
and this unity has been essential in turning up the pressure on Russia 
to change its behavior. If confirmed, I will work closely with the EU 
to ensure it maintains its existing sanctions regime against the 
Russian Government and ensure coordination with the EU on the 
implementation of U.S. sanctions to mitigate unintended consequences. 
U.S. and EU sanctions have reduced Russia's ability to access funding 
in the financial, energy, and defense sectors, and have limited its 
access to certain technologies. As a result of these sanctions, foreign 
investment in Russia is down and has depressed Russia's economic 
growth.
    The cornerstone of sanctions against Russia remains unity between 
the United States and its allies, especially U.S.-EU unity, and the 
chief goal is to impose costs on Russia's Government and on 
institutions and individuals that enable sanctionable malign 
activities, which is an objective shared by our European partners. ?The 
United States has recently imposed sanctions in response to Russian 
malicious cyber activities that threaten our national security. If 
confirmed, I will work with the EU to increase cooperation and 
coordination on cyber issues, including ways to address the Russian 
threat.

    Question 6. How will you engage counterparts in EU mechanisms 
established to counter Kremlin disinformation and cyber interference, 
such as the EU East StratCom Task Force, to promote transatlantic 
sharing of best practices and coordination of efforts?

    Answer. Russia is engaged in an aggressive and coordinated campaign 
to undermine core Western institutions, including the EU and NATO, and 
weaken faith in the democratic and free-market system. Such efforts aim 
to disrupt democratic processes and weaken unity directly and have the 
potential to harm U.S. interests and security, the cornerstone of which 
is the Transatlantic relationship. In Europe, the United States is 
seeking to reduce vulnerabilities, strengthen democratic institutions, 
eliminate corruption, and diversify energy supplies. If confirmed, I 
will work closely and coordinate with the EU to counter disinformation, 
including by working with the East Stratcom task force.
    I understand that the Department of State is in regular contact 
with EU cyber counterparts on countering destabilizing Russian behavior 
in cyberspace. If confirmed, I will work with my EU counterparts to 
strengthen international cyber norms on responsible state behavior, and 
work with like-minded member states to impose significant consequences 
on Russia for its continuing acts of aggression.

    Question 7. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have long believed in the importance of being active in 
my community through civic engagement and charitable endeavors, 
including serving as President of the Sondland/Durant Foundation and 
serving as the volunteer chairman of the executive committee of the 
Portland Art Museum.
    Over the course of my time participating in these various efforts, 
one experience in particular stands out to me. About six years ago I 
joined a group of CEOs on a tour of a number of African countries. In 
Zambia, we visited the Simonga Village School in order to help renovate 
their classrooms. Working alongside some of the younger students, I 
noticed that they were smart, ambitious, but lacking in focus. We met 
with the headmaster to discuss our observations. He told us that the 
lack of focus was due to hunger. Few of these students had more than 
one meal per day, and it was generally after school. They did not eat 
breakfast or lunch.
    After some further consultation, my wife and I decided to have our 
private charity, The Sondland/Durant Foundation develop a free 
breakfast program for ALL Simonga students, Monday through Friday. Word 
has spread and Sondland/Durant is now feeding about 500 students per 
day. The impact from this has been hugely positive, according to the 
school staff. Grades have risen significantly and the students are much 
more focused and happy.
    When we originally planned our visit to the Simonga Village School, 
our intent was to spend the day, help remodel some buildings and 
depart. Instead, we discovered an opportunity to make a long term 
difference in the lives of these students and help them not only with 
nutrition but also to focus on their education--a foundation for 
democracy and human rights. We have now served nearly one million meals 
and counting, and we plan to continue this program indefinitely.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in the European Union? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. The European Union (EU) has a vibrant and robust civil 
society that represents a wide range of viewpoints. If confirmed, I 
will lead the United States Mission to the EU in continuing to support 
our longstanding efforts to ensure the rights of all people are 
protected, and promote values of freedom, democracy, individual 
liberty, and human dignity. I would sustain the United States' 
engagement with a broad spectrum of civil society in the EU, including 
human rights activists and religious groups, and the organizations that 
represent them. I also believe that it would be beneficial to work with 
non-governmental organizations to develop and foster a climate of 
philanthropy that would broaden their sources of funding and enable 
them to have greater financial independence. If confirmed, I will work 
closely with the EU to advance democracy and human rights in Europe and 
around the world in places such as Cuba, Burma, and Venezuela.

    Question 9. Will you and your leadership team actively engage with 
European Union leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in the European Union?

    Answer. If confirmed, I will support throughout the European Union 
(EU) public diplomacy and other programs that allow for exchanges of 
ideas through press briefings, dialogue with reporters, social media, 
and face-to-face interaction with Europeans. The U.S. Mission to the EU 
runs a wide-ranging public diplomacy operation, including exchange 
programs. If confirmed, I commit to meeting regularly with independent, 
local press in the European Union.

    Question 10. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. If confirmed, I will work closely and coordinate with the 
EU and civil society to counter disinformation. In particular, Russia 
is engaged in an aggressive and coordinated campaign to undermine core 
Western institutions, including the EU and NATO, and weaken faith in 
the democratic and free-market system. Such efforts aim to disrupt 
democratic processes and weaken unity directly and have the potential 
to harm U.S. interests and security, the cornerstone of which is the 
Transatlantic relationship. In Europe, the United States is seeking to 
reduce vulnerabilities, strengthen democratic institutions, eliminate 
corruption, and diversify energy supplies.

    Question 11. Will you and your leadership team actively engage with 
European Union interlocutors on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Civil society is an important part of the democratic 
process in Europe and has a role to play in public awareness and public 
discourse. If confirmed, I am committed to sustaining engagement with a 
broad spectrum of civil society and labor groups within the European 
Union. If confirmed, I will ensure the Department continues to engage 
with labor groups in Europe and support their right to organize.

    Question 12. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the European 
Union, no matter their sexual orientation or gender identity? What 
challenges do the lesbian, gay, bisexual, transgender and queer (LGBTI) 
people face in the European Union? What specifically will you commit to 
do to help LGBTI people in the European Union?

    Answer. I am committed to upholding the rights of individuals, 
including LGBTI persons, in the European Union (EU) and elsewhere. If 
confirmed, I will work with the EU and other partners to continue to 
call on governments around the world to uphold international 
obligations to promote and protect human rights and fundamental 
freedoms. Together with the EU, I will stand in solidarity with civil 
society organizations and journalists working on these issues. I 
believe the Department of State's mission is at all times guided by 
longstanding American values of freedom, democracy, individual liberty, 
and human dignity.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Gordon D. Sondland by Senator Marco Rubio

JCPOA
    Question 1. After President Trump's decision to withdraw the United 
States from the Joint Comprehensive Program of Action (JCPOA) in May 
2018, the United States is now focusing on re-imposing and enforcing 
Iran sanctions passed by Congress unanimously or near-unanimously in 
recent years--including secondary sanctions related to significant 
transactions with the Central Bank of Iran (CBI) and other designated 
Iranian banks as well as the significant oil reduction requirement 
(Section 1245 of the FY 2012 National Defense Authorization Act), and 
the authorization of sanctions related to specialized financial 
messaging services to the Central Bank of Iran and other designated 
Iranian banks (Section 220 of the Iran Threat Reduction and Syria Human 
Rights Act of 2012).
    We, in the Congress, fully expect all countries--especially our 
allies and partners--to comply with all U.S. sanctions against Iran. 
These sanctions are not just related to stopping Iran's nuclear threat, 
but also aimed at comprehensively addressing the full array of threats 
posed by Iran, including its ballistic missile program, destabilizing 
regional activities, and egregious abuses of human rights.

   If confirmed, do you commit to consistently raising with European 
        governments the concerns of the United States about the Iranian 
        nuclear and ballistic missile programs, Iran's destabilizing 
        activities throughout the broader Middle East, and the Iranian 
        regime's egregious abuses of human rights?

    Answer. If confirmed, I commit to consistently raising with 
European governments the concerns of the United States about the 
Iranian nuclear and ballistic missile programs, Iran's destabilizing 
activities throughout the broader Middle East, and the Iranian regime's 
egregious abuses of human rights. President Trump, in his decision to 
withdraw from the JCPOA, made clear the United States' commitment to 
ensuring Iran has no possible path to a nuclear weapon and to 
addressing the threats posed by the regime's malign activities.

    Question 2. If confirmed, do you commit to emphasizing to our 
European allies our expectation that all governments will comply with 
sanctions against Iran, including CBI secondary sanctions, the 
significant oil reduction requirement, and de-SWIFTing CBI and other 
designated Iranian banks?

    Answer. If confirmed, I commit to explaining and emphasizing to our 
European allies our expectation that all governments will comply with 
the full spectrum of sanctions against Iran, including CBI secondary 
sanctions and de-SWIFTing CBI and other designated Iranian banks. 
Further, I will make clear that we expect all countries currently 
purchasing Iranian crude oil to end those purchases as quickly as 
possible. As Secretary Pompeo has stated, the United States will hold 
those doing prohibited business in Iran to account. The United States 
will apply unprecedented financial pressure on the Iranian regime and 
the leaders in Tehran will have no doubt about our seriousness.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Gordon D. Sondland by Senator Benjamin L. Cardin

    Question 1. What do you think the purpose of the European Union is 
today? How do you see that purpose in relation to the interests of the 
United States? Do you support a strong European Union?

    Answer. A strong transatlantic partnership remains central to U.S. 
foreign and security policy. With 28 member states representing over 
half a billion people, the European Union (EU) is one of our closest, 
most capable partners in the world on a host of international security, 
economic, diplomatic, and humanitarian efforts. The United States 
routinely engages with the EU at multiple levels on the most pressing 
global issues to advance a range of U.S. priorities across political, 
economic, and security areas. The EU leverages economic tools and the 
prospect of membership to promote reform and pro-Western policies in 
its neighborhoods. No other political bloc in the world carries the 
economic weight or combined political will to push back on malign 
actors globally in alignment with U.S. interests. The EU leverages the 
capacities of all 28 member states to address terrorism and security 
challenges around the world. It is able to lead and conduct missions to 
secure its borders and project stability outside of Europe. For all of 
these reasons, if confirmed, I will continue the longstanding U.S. 
policy of supporting a strong EU and strong Transatlantic relations.

    Question 2. The United States has supported the aspirations of 
Western Balkans countries to join the EU. How do you see the 
partnership of the United States and the EU regarding the Western 
Balkans where we have invested so much over the past 25 years?

    Answer. The United States continues to work closely with the 
European Union (EU) to help Balkan Governments accelerate economic and 
political reforms, especially those that strengthen institutions, rule 
of law, and resilience against Russian malign influence. The United 
States welcomes the emphasis of the Commission's Western Balkans 
Strategy that all six countries have a future in the EU, should they 
meet the requirements. I understand the U.S. Government continues to 
support Bosnia and Herzegovina (BiH) as it works to achieve official 
candidate status following the completion of its questionnaire process. 
The State Department notes the Commission's recognition of Montenegro 
and Serbia as frontrunners and commends both on their significant 
progress on their respective EU paths. The United States supports 
Albania and Macedonia formally opening EU accession negotiations in the 
very near future. Finally, I understand the United States continues to 
support strongly the EU-facilitated dialogue between Kosovo and Serbia, 
and encourages both sides to accelerate their efforts to normalize 
their relations fully.

    Question 3. What are the shared goals and values in the U.S.-EU 
partnership to which you referred in your written testimony?

    Answer. The United States and the European Union (EU) share common 
values of peace, liberty, stability, and prosperity. Our world has 
enjoyed all of these things since World War II in large part because of 
strong U.S. ties to Europe. Together, the United States and the EU have 
chosen a future defined by democracy, ordered liberty, separation of 
powers, and individual freedom over the old path of corruption and 
authoritarianism. The United States and the EU are working to advance 
our shared goals with respect to security, human rights, and 
prosperity. While we may have our differences, the United States and 
the EU agree far more than we disagree, as evidenced in our continuing 
close cooperation around the world, including addressing conflicts in 
the Middle East, confronting malign state actors, countering terrorism, 
and improving European security.

    Question 4. The governments of some European Union countries, 
notably Hungary and Poland, have openly challenged basic norms that 
were considered necessary for joining the EU, even while their 
populations remain strongly in favor of the EU. Does the weakening of 
EU norms affect U.S. economic interests in Europe?

    Answer. The United States relies on our allies to be strong 
partners for us on a wide range of issues. A strong EU is a strong 
economic partner for the United States. The U.S. engages with all of 
our allies and partners to promote our shared Transatlantic principles 
and values, as well as to foster bilateral cooperation that serves all 
of our interests. If confirmed, I will work with the EU to promote our 
shared Transatlantic values and advance U.S. economic interests.

    Question 5. Do you think Russia prefers a strong EU or a weak EU? 
What impact on the EU does Russia's efforts to build relations with 
individual EU countries such as Austria and Italy have?

    Answer. Russia is engaged in an aggressive and coordinated campaign 
to undermine core Western institutions, including the EU and NATO, and 
weaken faith in the democratic and free-market system. Such efforts aim 
to disrupt democratic processes and weaken unity directly and have the 
potential to harm U.S. interests and security, the cornerstone of which 
is the Transatlantic relationship.
    In April 2018 the EU's Foreign Affairs Council reaffirmed the EU's 
five guiding principles covering EU engagement towards Russia : 1) full 
implementation of the Minsk agreements; 2) strengthening the Eastern 
Partnership (Ukraine, Georgia, Moldova, Armenia, Azerbaijan and 
Belarus) and relations with other neighbors in Central Asia; 3) 
strengthening EU resilience in energy, facing hybrid threats, and 
strategic communications; 4) selective engagement with Russia on issues 
such as Iran or Syria; 5) and support for Russian civil society. The EU 
has been a strong U.S. ally on Russia, and an increasingly effective 
partner in promoting Transatlantic values and resisting Russian 
pressures. The United States and the EU have imposed sanctions on 
Russia since February 2014 in response to its aggression in Ukraine.
    In Europe, the United States is seeking to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies. If confirmed, I will continue to work with the EU to 
hold Russia accountable for its actions and counter its malign 
activities.

    Question 6. In November 2017, Hungary hosted a ``16+1'' summit with 
China, giving China a platform with a sub-set of EU countries and 
several non-EU Balkan countries (Hungary, Bulgaria, Romania, Poland, 
Bosnia and Herzegovina, Serbia, Croatia, Slovenia, Slovakia, Albania, 
Macedonia, Montenegro, Czech Republic, Lithuania, Latvia and Estonia). 
The meeting rattled some EU countries as the summit dealt with economic 
competencies they saw as reserved to the EU. What are China's interests 
in the European Union as an institution?

    Answer. China's primary interest in the European Union (EU) is 
industrial as it seeks to expand into higher value export manufacturing 
sectors, including new materials, aerospace, new-energy vehicles and 
advanced information technology. The EU's strength in advanced 
manufacturing capabilities, coupled with open investment climates and 
varying member state investment screening mechanisms, has allowed China 
to acquire some of the advanced manufacturing capability it seeks 
through mergers and acquisitions. Chinese Government subsidies, 
industrial policies, and its economic development strategy known as the 
Belt and Road Initiative (BRI) incentivize Chinese foreign direct 
investments (FDI) in Europe, which in turn can have political, 
economic, and cultural effects. If confirmed, I will work with the EU 
to increase awareness of the impact of China's activities and safeguard 
fairness, transparency, and accountability when it comes to Chinese 
investments, and when necessary to protect U.S. interests, will 
encourage the EU or member countries to modify or block Chinese 
investments.

    Question 7. How do you think the introduction of U.S. tariffs will 
impact the European Union? U.S.-EU relations?

    Answer. The U.S. goal has been to promote fair and reciprocal trade 
and we should not let these tariffs define the Transatlantic 
relationship. The United States is committed to working with the EU to 
narrow the gaps between us and work on issues of common concern. The 
President has stated that he would like to see a situation where both 
U.S. and EU tariffs are reduced to zero.
    As an economic matter, the impact will be minimal. According to the 
European Union, the U.S. trade enforcement measures on steel and 
aluminum under Section 232 affect $7.2 billion of U.S. imports of the 
relevant steel and aluminum products from the EU, representing 1.43 
percent of total imports of goods from the EU in 2017.
    However, the EU imposed its own set of tariffs in retaliation, 
targeting a list of U.S. exports to the EU such as steel, agriculture, 
textiles, spirits, and motorcycles worth ?2.8 billion. The EU has said 
it may choose to impose retaliatory tariffs on an additional ?3.6 
billion of U.S. goods either in three years, or after a positive 
finding in the EU's WTO dispute of U.S. tariffs.

    Question 8. In recent years, Germany has helped promote economic 
stability in the EU. How do you see the U.S. relationship with Germany 
impacting the EU?

    Answer. Germany is one of America's closest partners and is a key 
leader within the European Union (EU). Our interests are aligned in 
promoting economic and political stability in the EU, as well as in 
strengthening U.S.-EU ties. Germany continues to be an engine for 
growth and stability within the European Union, which makes the EU a 
reliable partner for the United States.
    EU member states are collectively our biggest trading partner, and 
Germany, as Europe's largest economy and the world's fourth largest 
overall, is at the heart of that relationship. The United States and 
Germany have a deep trade and investment relationship. Despite the 
large trade imbalance in goods that we look to address, the United 
States and Germany conducted over $237 billion in total trade in goods 
and services. German investment in the United States is important to 
our economic growth and is responsible for over 670,000 U.S. jobs.

    Question 9. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have long believed in the importance of being active in 
my community through civic engagement and charitable endeavors, 
including serving as President of the Sondland/Durant Foundation and 
serving as the volunteer chairman of the executive committee of the 
Portland Art Museum.
    Over the course of my time participating in these various efforts, 
one experience in particular stands out to me. About six years ago I 
joined a group of CEOs on a tour of a number of African countries. In 
Zambia, we visited the Simonga Village School in order to help renovate 
their classrooms. Working alongside some of the younger students, I 
noticed that they were smart, ambitious, but lacking in focus. We met 
with the headmaster to discuss our observations. He told us that the 
lack of focus was due to hunger. Few of these students had more than 
one meal per day, and it was generally after school. They did not eat 
breakfast or lunch.
    After some further consultation, my wife and I decided to have our 
private charity, The Sondland/Durant Foundation develop a free 
breakfast program for ALL Simonga students, Monday through Friday. Word 
has spread and Sondland/Durant is now feeding about 500 students per 
day. The impact from this has been hugely positive, according to the 
school staff. Grades have risen significantly and the students are much 
more focused and happy.
    When we originally planned our visit to the Simonga Village School, 
our intent was to spend the day, help remodel some buildings and 
depart. Instead, we discovered an opportunity to make a long term 
difference in the lives of these students and help them not only with 
nutrition but also to focus on their education--a foundation for 
democracy and human rights. We have now served nearly one million meals 
and counting, and we plan to continue this program indefinitely.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the European Union?

    Answer. My investment portfolio includes companies that have a 
presence in the European Union, but I have worked closely with the 
State Department Ethics Office and the Office of Government Ethics and 
will divest my interests in those companies the State Department Ethics 
Office deems necessary to avoid a conflict of interest. I am committed 
to ensuring that my official actions will not give rise to a conflict 
of interest, and I will remain vigilant with regard to my ethics 
obligations.

    Question 13. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As the child of parents who fled persecution and near-
certain death because of their Jewish faith, I am extremely cognizant 
of the importance of diversity and ensuring that people's differences 
are embraced, celebrated, and supported. In my current business, 
diversity is in its DNA. Our customers are represented by every race, 
gender, religion and sexual orientation. Our associates who serve them 
reflect that diversity. This creates a successful business and a joyful 
working environment. Our company's policy regarding diversity is as 
follows:
Diversity Statement
        The Hotel strives to create a workforce as diverse, inclusive 
        and multifaceted as its customer base. It is our desire to 
        respect culture and ethnic diversity by hiring and nurturing 
        individuals with an array of talent, experience, perspective, 
        and backgrounds that will recognize the needs of, and provide 
        exceptional service to our guests.

    If confirmed, I intend to bring this same passion for diversity to 
the U.S. Mission at the EU and will actively encourage, promote, 
mentor, and support my staff, including those who come from diverse 
backgrounds and underrepresented groups in the Foreign Service.

    Question 14. What steps will you take to ensure each of the 
supervisors at the Mission are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, the U.S. Mission to the EU under my 
leadership will reflect our whole-of-mission commitment to promoting 
diversity and inclusion. First and foremost, I believe that it is 
important to lead by example. Diversity has been incredibly important 
to me in my own career and business, and, if confirmed, I will ensure 
that the leaders and supervisors at the Mission understand that it is 
something that I value deeply. Moreover, I will make certain each of 
the supervisors at the U.S. Mission has the opportunity to receive 
proper formal training and regular guidance to ensure that he or she is 
helping to foster a work environment that is diverse and inclusive.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Gordon D. Sondland by Senator Cory A. Booker

JCPOA

    Question 1. As you mentioned in your testimony, the relationship 
between our European allies and the United States was strained after 
the U.S. unilaterally exited the JCPOA.
    Since then, the European Union started to activate measures to 
preserve the Iran nuclear agreement and to protect EU companies 
operating in the country.

   How do you view the prospects for European compliance with re-
        imposed U.S. sanctions on Iran?

    Answer. I understand that many large European companies have 
already demonstrated a willingness to comply with re-imposed U.S. 
sanctions. Since the President's announcement of U.S. withdrawal from 
the JCPOA, several European companies have announced the termination 
tens of billions of dollars in contracts with Iran. In addition, 
European banks and insurance providers have made announcements of their 
intentions to suspend services in response to U.S. sanctions. I 
understand that Secretary Pompeo and interagency teams are meeting with 
European partners to explain the implementation of the President's Iran 
strategy. If confirmed, I look forward to continuing discussions on 
Iran with our European allies and partners and determining how we can 
best move forward together to address the full threat Iran poses.

    Question 2. Even if many European companies choose to cut business 
ties with Iran, how might opposition to U.S. policy from the EU (and 
other international actors including Russia and China) affect the U.S. 
ability to exert ``maximum pressure'' on Iran through sanctions?

    Answer. In announcing the U.S. withdrawal from the JCPOA on May 8, 
President Trump noted the U.S. intention to continue working with 
European allies to counter the Iranian regime's destabilizing 
activities in the region, block its financing of terror, and address 
Iran's proliferation of missiles and other advanced weapons systems 
that threaten peace and stability. The President was clear--Iran must 
have no path to a nuclear weapon. Our European partners and allies 
share our concerns and are equally threatened by the Iranian regime.
    Additionally, I understand that U.S. interagency teams are engaging 
with China and Russia to build support for fulsome discussions of 
Iranian behavior that go beyond the scope of the JCPOA and remove the 
threat posed by Iran.

                               __________


     Responses to Additional Questions for the Record Submitted to 
               Ronald Gidwitz by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Civic engagement is something that I have long believed to 
be of utmost importance. Our communities and institutions are strongest 
when we participate in and nurture them. Some examples of my work 
include the following:

  <diamond> American Jewish committee: I served for ten years as the 
        Campaign Chair for the Chicago Chapter of the American Jewish 
        Committee one of the nation's preeminent human rights 
        organizations. AJC describes it mission as is the leading 
        global Jewish advocacy organization, with unparalleled access 
        to government officials, diplomats, and other world leaders. 
        Through these relationships and our international presence, AJC 
        is able to impact opinion and policy on the issues that matter 
        most: combating rising anti-Semitism and extremism, defending 
        Israel's place in the world, and safeguarding the rights and 
        freedoms of all people.
  <diamond> Big Shoulders: I was a founding board member of the 
        Cardinal's Big Shoulders fund of the Archdiocese of Chicago. I 
        served from 1986 to 1999. The mission of the Big Shoulders Fund 
        is to provide assistance to Catholic elementary and high 
        schools in Chicago's low-income communities. The funds raised 
        by Big Shoulders are given to its schools to support a variety 
        of educational mediums including scholarships, special 
        education programming, instructional equipment, facility 
        improvements, faculty development and operating grants. Most 
        importantly, the efforts make a real difference. High schools 
        have a 95 percent graduation rate and effectively prepare 
        students for college and career. Since Big Shoulders began 
        tracking in 2009, 85 percent of all graduating scholars have 
        enrolled in college during the year following high school 
        graduation. Even more significant, a recent survey of a sample 
        of alumni of Big Shoulders Fund schools showed African-American 
        alumni graduated from college at a rate more than twice the 
        national average and Hispanic alumni graduated at a rate more 
        than three times the national average.
  <diamond> Boys & Girls Clubs of America: I have served on the Boys & 
        Girls Clubs of America board for 44 years. Serving children 
        from age 6 to 18 years of age, BGCA has at its mission to 
        enable all young people, especially those who need us most, to 
        reach their full potential as productive, caring, responsible 
        citizens. There are more than four million youngsters in our 
        programs in more than 4,400 locations. Most importantly, we 
        know that our efforts are successful here as well. BGCA 
        research shows that young people who attend a Club regularly 
        tend to do better than their peers nationally, and are more 
        likely to volunteer, abstain from alcohol, abstain from drug 
        use, be physically active, obtain good grades, and express an 
        interest in a STEM career. Additionally, when surveyed by a 
        third party polling source, 57 percent of BGCA alumni say that 
        these clubs saved their life.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Belgium in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. Although Belgium enjoys a thriving democracy, one challenge 
in Belgium is the fracturing of governance along linguistic lines. The 
lack of integration and even interaction between Belgium's two largest 
linguistic communities means there are no national political parties 
and often a lack of a cohesive national policy. Among other things, 
this can also lead to complications with information sharing and law 
enforcement cooperation between the linguistic communities. This 
division has real repercussions; Belgium famously went without a 
central government for 589 days when its political parties were unable 
to form a successful coalition in 2010-11, a record for a democracy.

    Question 3. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Belgium? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. There are no known cases of efforts to restrict or penalize 
NGOs in Belgium. Belgium has a robust record on protecting human rights 
at home and abroad, supported by a dynamic civil society, and 
established partnerships with American organizations. If confirmed, I 
am committed to sustaining engagement with a broad spectrum of civil 
society actors from the U.S. and Belgium.

    Question 4. Will you and your leadership team actively engage with 
Belgian leaders on freedom of the press and address any government 
efforts designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Belgium?

    Answer. There are no known cases of government efforts to undermine 
press freedom in Belgium. Belgium enjoys strong media pluralism, which 
is reflected in its number seven ranking on the 2018 World Press 
Freedom Index. While media ownership is fairly concentrated, if 
confirmed, I am also committed to maintaining strong relationships with 
independent and local press.

    Question 5. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. Like the United States, Belgium takes the growing threat of 
disinformation seriously, whether perpetrated by foreign state or non-
state actors. If confirmed, I will support the cooperation that is 
already ongoing between our two countries and work to further 
strengthen efforts on this issue.

    Question 6. Will you and your leadership team actively engage with 
Belgian interlocutors on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Belgium has a strong labor movement and there are no bars 
on the right of labor groups to organize. Belgium's three major trade 
union confederations continue to enjoy large and active membership. If 
confirmed, I look forward to engaging the leadership of these trade 
unions as part of my outreach to key elements of Belgian society.

    Question 7. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Belgium, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTI) people face 
in Belgium? What specifically will you commit to do to help LGBTI 
people in Belgium?

    Answer. Belgium was the second country in the world both to 
legalize same-sex marriage (2003) and to have an openly gay head of 
government. Same-sex couples have the same rights regarding adoption as 
do opposite-sex couples and LGBTI rights are included in the country's 
antidiscrimination laws. In May 2017, Belgium approved a law removing 
the requirement for people to undergo gender reassignment surgery 
before they are allowed to change their gender legally. Some challenges 
remain, such as the underreporting of crimes against the LGBTI 
community. If confirmed, I am committed to working with the Belgian 
Government and civil society to address these challenges and to 
supporting the ideals of tolerance and inclusion already so evident in 
Belgium.

                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Ronald Gidwitz by Senator Marco Rubio

JCPOA
    Question 1. After President Trump's decision to withdraw the United 
States from the Joint Comprehensive Program of Action (JCPOA) in May 
2018, the United States is now focusing on re-imposing and enforcing 
Iran sanctions passed by Congress unanimously or near-unanimously in 
recent years--including secondary sanctions related to significant 
transactions with the Central Bank of Iran (CBI) and other designated 
Iranian banks as well as the significant oil reduction requirement 
(Section 1245 of the FY 2012 National Defense Authorization Act), and 
the authorization of sanctions related to specialized financial 
messaging services to the Central Bank of Iran and other designated 
Iranian banks (Section 220 of the Iran Threat Reduction and Syria Human 
Rights Act of 2012).
    We, in the Congress, fully expect all countries--especially our 
allies and partners--to comply with all U.S. sanctions against Iran. 
These sanctions are not just related to stopping Iran's nuclear threat, 
but also aimed at comprehensively addressing the full array of threats 
posed by Iran, including its ballistic missile program, destabilizing 
regional activities, and egregious abuses of human rights.

   If confirmed, do you commit to consistently raising with European 
        governments the concerns of the United States about the Iranian 
        nuclear and ballistic missile programs, Iran's destabilizing 
        activities throughout the broader Middle East, and the Iranian 
        regime's egregious abuses of human rights?

    Answer. If confirmed, I commit to consistently raising with 
European governments the concerns of the United States about the 
Iranian nuclear and ballistic missile programs, Iran's destabilizing 
activities throughout the broader Middle East, and the Iranian regime's 
egregious abuses of human rights. President Trump, in his decision to 
withdraw from the JCPOA, made clear the United States' commitment to 
ensuring Iran has no possible path to a nuclear weapon and to 
addressing the threats posed by the regime's malign activities.

    Question 2. If confirmed, do you commit to emphasizing to our 
European allies our expectation that all governments will comply with 
sanctions against Iran, including CBI secondary sanctions, the 
significant oil reduction requirement, and de-SWIFTing CBI and other 
designated Iranian banks?

    Answer. If confirmed, I commit to explaining and emphasizing to our 
European allies our expectation that all governments will comply with 
the full spectrum of sanctions against Iran, including CBI secondary 
sanctions and de-SWIFTing CBI and other designated Iranian banks. 
Further, I will make clear that we expect all countries currently 
purchasing Iranian crude oil to end those purchases as quickly as 
possible. As Secretary Pompeo has stated, the United States will hold 
those doing prohibited business in Iran to account. The United States 
will apply unprecedented financial pressure on the Iranian regime and 
the leaders in Tehran will have no doubt about our seriousness.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Ronald Gidwitz by Senator Benjamin L. Cardin

    Question 1. Do you believe that there are parts of Belgium that 
would be unsafe for you to visit?

    Answer. Belgium has a low crime rate and strong law enforcement 
institutions. The State Department has issued a Level 2 Travel Advisory 
due to the threat of terrorism. The Department advises U.S. citizens to 
exercise caution when planning travel to Belgium. In this vein, if 
confirmed, I will rely on the expertise and advice of our security 
officers and local Belgian authorities when planning my travel.

    Question 2. How do you assess Belgian efforts to advance diversity 
and promote integration of all segments of its population, including 
religious and racial minorities? What more needs to be done? How do you 
assess U.S.-Belgian partnership on those issues?

    Answer. Belgium has a strong overall record of promoting 
integration and diversity. However, challenges remain. The most 
pressing of these is discrimination motivated by anti-Semitism and 
anti-Muslim sentiment.
    As reported in the State Department's 2017 Country Report on Human 
Rights Practices, there has been a rise in anti-Semitic acts, including 
online hate speech, Holocaust denial, and vandalism. The Belgian 
Government has taken these issues seriously, investigating and 
prosecuting such as appropriate under Belgian law. The Government has 
also increased security around synagogues and within Jewish 
neighborhoods.
    Discrimination against ethnic minorities, particularly of African 
or Middle Eastern descent, has also increased, especially since the 
March 2016 attacks in Brussels. However, Belgian civil society has 
acted as a strong bulwark against Islamophobia, and the judicial system 
has prosecuted perpetrators of anti-Muslim hate crimes.
    If confirmed, I will seek ways to cooperate with the Government of 
Belgium and Belgian civil society as they continue to address these 
challenges and work with them to promote tolerance and inclusivity.

    Question 3. Brexit has the potential to harm UK-Belgian trade and 
economic relations. What are your views on the impact of Brexit on EU 
countries such as Belgium?

    Answer. Strong Belgium-UK trade links mean Belgium seeks a Brexit 
outcome that yields economic stability. Belgian FM Reynders has said he 
seeks, ``the best possible relations'' with the United Kingdom. Belgium 
also recognizes opportunities in Brexit, such as the ability to welcome 
businesses considering relocation from the UK to other EU member 
states. Two major financial services companies, Euroclear, one of the 
world's largest securities depositories, and Moneygram, the U.S. money 
transfer company, are moving their European headquarters to Brussels in 
anticipation of Brexit. Brexit remains a matter for the EU and UK to 
resolve. If confirmed, I stand ready to offer U.S. support as 
appropriate for an orderly, predictable withdrawal and transition 
period. I will have a particular focus on protecting U.S. economic and 
security interests, including U.S. companies' ability to continue 
thriving.

    Question 4. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Civic engagement is something that I have long believed to 
be of utmost importance. Our communities and institutions are strongest 
when we participate in and nurture them. Some examples of my work 
include the following:

  <diamond> American Jewish committee: I served for ten years as the 
        Campaign Chair for the Chicago Chapter of the American Jewish 
        Committee one of the nation's preeminent human rights 
        organizations. AJC describes it mission as is the leading 
        global Jewish advocacy organization, with unparalleled access 
        to government officials, diplomats, and other world leaders. 
        Through these relationships and our international presence, AJC 
        is able to impact opinion and policy on the issues that matter 
        most: combating rising anti-Semitism and extremism, defending 
        Israel's place in the world, and safeguarding the rights and 
        freedoms of all people.
  <diamond> Big Shoulders: I was a founding board member of the 
        Cardinal's Big Shoulders fund of the Archdiocese of Chicago. I 
        served from 1986 to 1999. The mission of the Big Shoulders Fund 
        is to provide assistance to Catholic elementary and high 
        schools in Chicago's low-income communities. The funds raised 
        by Big Shoulders are given to its schools to support a variety 
        of educational mediums including scholarships, special 
        education programming, instructional equipment, facility 
        improvements, faculty development and operating grants. Most 
        importantly, the efforts make a real difference. High schools 
        have a 95 percent graduation rate and effectively prepare 
        students for college and career. Since Big Shoulders began 
        tracking in 2009, 85 percent of all graduating scholars have 
        enrolled in college during the year following high school 
        graduation. Even more significant, a recent survey of a sample 
        of alumni of Big Shoulders Fund schools showed African-American 
        alumni graduated from college at a rate more than twice the 
        national average and Hispanic alumni graduated at a rate more 
        than three times the national average.
  <diamond> Boys & Girls Clubs of America: I have served on the Boys & 
        Girls Clubs of America board for 44 years. Serving children 
        from age 6 to 18 years of age, BGCA has at its mission to 
        enable all young people, especially those who need us most, to 
        reach their full potential as productive, caring, responsible 
        citizens. There are more than four million youngsters in our 
        programs in more than 4,400 locations. Most importantly, we 
        know that our efforts are successful here as well. BGCA 
        research shows that young people who attend a Club regularly 
        tend to do better than their peers nationally, and are more 
        likely to volunteer, abstain from alcohol, abstain from drug 
        use, be physically active, obtain good grades, and express an 
        interest in a STEM career. Additionally, when surveyed by a 
        third party polling source, 57 percent of BGCA alumni say that 
        these clubs saved their life.

    Question 5. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you or do any members of your immediate family have 
any financial interests in The Kingdom of Belgium?

    Answer. My investment portfolio includes companies that have a 
presence in the Kingdom of Belgium, but I have worked closely with the 
State Department Ethics Office and the Office of Government Ethics and 
will divest my interests in those companies the State Department Ethics 
Office deems necessary to avoid a conflict of interest. I am committed 
to ensuring that my official actions will not give rise to a conflict 
of interest, and I will remain vigilant with regard to my ethics 
obligations.

    Question 8. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a native son and still current resident of the city of 
Chicago, I am consistently struck by the rich, vibrant, and exciting 
community we have. The backbone of our community and the lifeblood of 
our city's culture is diversity-of people, cultures, neighborhoods, and 
experiences. It is with this in mind that I have, throughout my career, 
worked to ensure that the business, government, and civic organizations 
I led and served reflected the diversity of our country and upheld the 
principals of equal opportunity. To me, this has meant ensuring that I 
hired, promoted, mentored, and supported employees of different races, 
genders, religions, ages, national origins, disabilities, and other 
protected categories. When able, it has also meant that I sought out 
employees who might not fall into a protected category and are often 
left behind entirely-people who have been convicted of crimes, served 
their sentences, and were released back into our community.
    If confirmed, I would bring with me a passion for diversity and a 
keen understanding of how the differences amongst team members would 
strengthen our work on behalf of the United States at our Mission to 
Belgium.

    Question 9. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I believe in leading by example and, if confirmed, I will 
foster a diverse and inclusive team at Embassy Brussels and communicate 
this is a priority for me as the Ambassador. If confirmed, I will urge 
the Embassy to reflect our whole-of-mission commitment to promoting 
diversity and inclusion. I will ensure all supervisors at the Embassy 
have access to and avail themselves of opportunities to receive regular 
formal training and regular guidance on EEO principles, diversity, and 
inclusion to sensitize them to these important issues and maximize 
diverse talents in our workforce.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Cherith Norman Chalet by Senator Robert Menendez

Aligning Policy and U.N. Assessments Rate by end of 2018
    Question 1. Every three years, the U.S. joins other nations in 
negotiations over the rate at which it pays its share of the United 
Nations budget and for U.N. peacekeeping operations. For U.N. 
peacekeeping, this is the rate each country agrees to pay, as its 
share, after the U.N. Security Council votes for a mission or its 
continuation. Those negotiations are this year. The current U.S. share 
of the peacekeeping budget is 28.4 percent--so we pay a little over the 
quarter of the total. The Trump administration wants to pay 25 percent, 
which is the same amount Congress provided last year.
    Aligning the negotiated rate and the amount we will pay makes 
sense, to prevent further arrears, which is growing gap between the 
legal U.S. rate of 28.4 percent and what we're paying. The United 
States needs a strong, interagency strategy--led by U.N. Ambassador 
Haley--in order to have any chance to convince other countries to pay 
more.

    What is the U.S. strategy for these negotiations? What has been 
        done so far? Please be specific.
    How is the U.S. laying the groundwork to align our declared policy 
        and the negotiated rate? How can Congress help?
    Without a strong, coordinated strategy led by senior leadership, 
        how will we avoid new arrears and undercutting peacekeeping and 
        reforms?

    Answer. Negotiations on the U.N. Scales of Assessment for both the 
U.N.'s regular and peacekeeping budgets covering the period of 2019-21 
are scheduled to get underway later this year. U.S. goals for those 
negotiations are to preserve the current 22 percent ceiling on the 
regular budget and secure agreement to a 25 percent ceiling on the 
peacekeeping budget. U.S. strategy is to encourage the willingness of 
key U.N. member state partners to defend the regular budget ceiling and 
more equitably share the burden of the peacekeeping budget through 
agreement on a 25 percent ceiling. We have underscored the need for the 
U.N. peacekeeping budget not to be over reliant on a single donor as 
well as the full spectrum of bilateral support the United States 
provides to countries around the world to enable better and more 
effective peacekeeping.
    We have conducted substantial outreach on this issue. The topic has 
been featured in dozens of meetings our Mission in New York has held 
with counterparts. A diplomatic demarche to a select group of 
influential countries in February underscored our determination to 
achieve the ceiling and interest in working with key partners. A 
Department delegation traveled to Europe and Asia during the spring to 
seek cooperation and agreement with our goals. We will be continuing 
this outreach with further diplomatic demarches, inclusion of the topic 
in senior-level engagements with foreign counterparts and further 
focused New York-based meetings.
    Congress can assist in this process by raising the issue and its 
importance in meetings with foreign counterparts and emphasizing that a 
ceiling on the peacekeeping rate is a longstanding and bipartisan U.S. 
goal.
    Success in this endeavor will require sustained and focused senior-
level attention. That has and continues to be an integral element of 
our effort. Reform of the peacekeeping budget to ensure its 
effectiveness and efficiency remains a high priority and success on 
securing a 25 percent ceiling on the peacekeeping assessment rate will 
complement and reinforce that goal.

    Question 2. FY 2017 and FY 2018 appropriations laws enforced the 
arbitrary 25 percent cap on U.S. contributions to U.N. peacekeeping 
operations. As a result, the U.S. is on track to accrue more than $500 
million of arrears on its peacekeeping assessments for those two fiscal 
years alone. This mounting U.S. debt threatens to negatively impact the 
effectiveness of critical missions in the field; reduces reimbursement 
payments to U.S. partners and allies-such as Jordan, Tanzania, 
Bangladesh, and Ghana-who contribute the bulk of troops and police that 
serve on these missions; and, by alienating likeminded countries at the 
U.N., makes your job advocating for U.S. reform priorities more 
difficult.

   Does the administration have a plan for dealing with the effects of 
        these arrearages?

    Answer. Given that the current U.S. peacekeeping assessment rate 
adopted by the U.N. General Assembly is 28.5 percent, paying only 25 
percent will result in arrears. The amount of arrears will be 
approximately $250 million this year. The arrears will be distributed 
proportionally across all U.N. peacekeeping missions.
    The financial impact on peacekeeping operations will occur toward 
the end of the U.N. peacekeeping financial year, which ends on June 30. 
The impact will vary by individual mission, depending on cash-flow 
needs. At those missions where cash-flow problems do occur, the U.N. 
Secretariat is likely to delay reimbursements to troop contributing 
countries.
    If confirmed, I will work to ensure that arrears do not negatively 
affect the Department's and USUN's ability to advance U.S. interests at 
the United Nations.

    Question 3. FY 2017 and FY 2018 appropriations laws enforced the 
arbitrary 25 percent cap on U.S. contributions to U.N. peacekeeping 
operations. As a result, the U.S. is on track to accrue more than $500 
million of arrears on its peacekeeping assessments for those two fiscal 
years alone. This mounting U.S. debt threatens to negatively impact the 
effectiveness of critical missions in the field; reduces reimbursement 
payments to U.S. partners and allies-such as Jordan, Tanzania, 
Bangladesh, and Ghana-who contribute the bulk of troops and police that 
serve on these missions; and, by alienating likeminded countries at the 
U.N., makes your job advocating for U.S. reform priorities more 
difficult.

   Do you think it is responsible policy for the U.S. to vote in favor 
        of peacekeeping missions on the Security Council only to fail 
        to live up to its financial obligations to those same missions?

    Answer. The 25 percent cap reflects the principle that other 
countries should assume more of the financial responsibility for U.N. 
peacekeeping operations, and the United Nations should not be overly 
dependent on a single major contributor. The President's budget 
proposal for FY 2019 reflects the U.S. commitment to spur long-needed 
reforms and more equitable burden-sharing among U.N. member states. As 
President Trump told U.N. Security Council Ambassadors on April 24, 
2017 ``the United Nations has tremendous potential,'' but ``for the 
United Nations to play an effective role in solving . challenges, big 
reforms will be required.'' By demanding fiscal discipline, the United 
States is leading the United Nations to become more effective and 
efficient in achieving its mission and reducing conflict and violence 
around the world.

    Question 4. You were nominated to serve as the U.N. Management and 
Reform Counselor for the U.S. Mission to the U.N.. I was alarmed by a 
recent report about serious mismanagement by senior political 
appointees at the State Department Bureau of International Operations, 
which handles our relationship with many U.N. bodies and agencies, and 
which you will need to work with daily. One senior political employee 
continues to engage in prohibited personnel practices. These include 
vetting career State Department officials and American employees of 
international organizations to determine whether they are sufficiently 
loyal to President Donald Trump. If you confirmed, you will be working 
on behalf of the U.S. Government to push the U.N. to engage in 
significant management reform, and yet our own house may not be in 
order.

   How do you believe the serious mismanagement issues in the Bureau 
        of International Operations should be addressed?

    Answer. While I am aware of the accusations made in recent media 
reporting, I am not cognizant of any such efforts or actions. If 
confirmed, it would be my intent to advance the longstanding U.S. 
objective of identifying the strongest possible American candidates for 
positions across the U.N. system. Our citizens remain underrepresented 
in this system, and it is my firm belief that qualified Americans, 
regardless of political perspectives or affiliations, bring important 
orkplace attributes that can only benefit the United Nations and serve 
to promote U.S. national interests.

    Question 5. Earlier this year, the administration announced that it 
is withholding the bulk-approximately 83 percent or $300 million--of 
the U.S.'s annual contribution to the U.N. Relief and Works Agency for 
Palestine Refugees (UNRWA).The administration has repeatedly stated 
that it may restore funding to UNRWA if the organization completes 
certain ``reforms.'' Nevertheless, to my understanding, no information 
has been provided to UNRWA about what reform measures the United States 
would like the agency to implement.

   Could you clarify the administration's position on that issue?

    Answer. It is my understanding that U.S. assistance to the 
Palestinians, including the United Nations Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA), remains under review. I 
know that the United States has long voiced the need for UNRWA both to 
seek out new voluntary funding streams and increase burden-sharing 
among its donors, as well as to undertake more fundamental reforms. The 
United States should not be asked to bear a disproportionate share of 
UNRWA's costs.

    Question 6. Earlier this year, the administration announced that it 
is withholding the bulk-approximately 83 percent or $300 million--of 
the U.S.'s annual contribution to the U.N. Relief and Works Agency for 
Palestine Refugees (UNRWA).The administration has repeatedly stated 
that it may restore funding to UNRWA if the organization completes 
certain ``reforms.'' Nevertheless, to my understanding, no information 
has been provided to UNRWA about what reform measures the United States 
would like the agency to implement.

   Has the administration provided anything in writing outlining what 
        reform it is demanding? Can you provide that to the committee?

    Answer. The State Department said in January that there was a need 
to undertake a fundamental reexamination of UNRWA's funding and 
operations; I understand that review is ongoing. The administration 
regularly reviews its foreign assistance to identify how to leverage it 
to achieve U.S. objectives, including global and regional security, and 
to ensure that it is providing value to the U.S taxpayer. I believe the 
current review of U.S. assistance to the Palestinians, including UNRWA, 
is no different.
U.N. Reform
    Question 7. A key plank of the Secretary-General's reform agenda 
advanced when the U.N. General Assembly agreed to a package of measures 
aimed at improving the U.N. development system to more effectively 
deliver progress on the Sustainable Development Goals. An important 
part of this new approach is transforming the role of the resident 
coordinator--the senior-most U.N. official in the field. Resident 
coordinators are responsible for heading up the U.N.'s development work 
on the ground in individual countries, often also encompassing 
humanitarian and security responsibilities. Underpinning these reforms 
will be a stronger team in New York, with the resident coordinators 
reporting directly to leadership at the top of the U.N.--creating a 
direct accountability link between the U.N. in New York and leadership 
on the ground, where most U.N. staff working on development issues are 
located.

   Can you talk about the role of U.S. leadership in pushing forward 
        these reforms?

    Answer. The United States is a strong advocate for U.N. reform, and 
we support the Secretary-General's vision to make the U.N. work more 
efficiently and effectively. We played a leading role in the U.N. 
General Assembly (UNGA) negotiations of the U.N. Development System 
reform resolution, which established an independent resident 
coordinator system to help U.N. development agencies coordinate better 
in the field. We reduced the financial burden of the reform on the 
U.N.'s regular budget (to which we contribute 22 percent) by advocating 
for voluntary funding and greater cost-sharing among U.N. funds and 
programmes.

    Question 8. How does the administration plan to build on these 
measures to ensure that the U.N. is properly positioned to achieve the 
2030 Goals?

    Answer. The passage of the UNGA reform resolution is the first 
important step in the reform process. We share the Secretary General's 
overarching goal to make the U.N. more efficient and effective. We will 
work to ensure the resolution is implemented to reach that goal while 
avoiding unintended negative consequences. We believe the Resident 
Coordinator system should promote coordination, while empowering 
individual agencies to make decisions that deliver assistance 
effectively on the ground. We will be watching this closely in the 
coming months and years.

    Question 9. UN peacekeeping operations have been shown to be more 
cost-effective than other forms of military intervention. A report 
published by the Government Accountability Office (GAO) in February 
2018 compared the cost of the current U.N. peacekeeping mission in the 
Central African Republic (MINUSCA) with a hypothetical operation 
undertaken by the U.S. military. Overall, the GAO analysis found that 
supporting MINUSCA is eight times less expensive for U.S. taxpayers 
than the deployment of U.S. forces to CAR.

   Are you familiar with the conclusions of the GAO report?

    Answer. Yes, I am familiar with the conclusions of the GAO report. 
U.N. peacekeeping operations can be an effective mechanisms of burden-
sharing to address the global challenges to international peace and 
security. However, the underlying premise of the report assumes that 
United Nations peacekeeping operations and United States military 
operations are comparable, when in fact the two are very different. 
While this placed limitations on analysis, GAO was able to demonstrate 
the important contributions U.N. peacekeeping provides to international 
peace and security.

    Question 10. U.N. peacekeeping operations have been shown to be 
more cost-effective than other forms of military intervention. A report 
published by the Government Accountability Office (GAO) in February 
2018 compared the cost of the current U.N. peacekeeping mission in the 
Central African Republic (MINUSCA) with a hypothetical operation 
undertaken by the U.S. military. Overall, the GAO analysis found that 
supporting MINUSCA is eight times less expensive for U.S. taxpayers 
than the deployment of U.S. forces to CAR.

   Do you think it is important to maintain some perspective about the 
        relative cost of these missions when making decisions about 
        continued U.S. support for peacekeeping?

    Answer. Beyond cost, as Ambassador Haley stated during a March 2018 
Security Council event, when given an appropriate mandate, and when 
properly managed and equipped, peacekeeping missions can play a role 
supporting peace and saving lives. That is why peacekeeping reform 
remains a top priority for the United States. If confirmed, I will 
continue to work tirelessly to advance peacekeeping reform, and to make 
peacekeeping operations more effective and efficient.
    The peacekeeping principles continue to guide the United States' 
approach to reform and mission-by-mission evaluation. Peacekeeping 
missions need to support political solutions. They need host country 
cooperation. Mandates must be realistic and achievable. Missions need 
to have an exit strategy. Mandates should be adjusted according to 
evolving situations.
    The United States is also developing a ``culture of performance'' 
when it comes to the peacekeeping operations at the U.N.. As Ambassador 
Haley stated, the people the U.N. serves deserve to know that when blue 
helmets arrive, they are qualified, appropriately equipped, and ready 
to perform their duty.
    I agree with the President's statement during the 2017 U.N. General 
Assembly: if we work together and champion truly bold reforms, the U.N. 
will emerge as a stronger, more effective, more just, and greater force 
for peace and harmony in the world.
U.N. Voting Practices
    Question 11. The administration has proposed using a country's 
voting record on U.N. General Assembly resolutions to determine how 
much bilateral aid that country receives. This idea has been considered 
in the past and viewed as bad policy and counter-productive for a 
variety of reasons. Firstly, General Assembly resolutions are legally 
non-binding, so cutting aid to countries with whom we have important 
security or business ties-take Egypt, Jordan, or India, for example-
because of such votes seems petty and disproportionate at a minimum. 
Moreover, much like our own Senate, the vast majority of General 
Assembly resolutions are approved by consensus, meaning no vote is 
actually taken. According to the State Department's 2016 report on 
voting practices in the U.N., when consensus measures are factored in, 
the average concurrence rate of other countries with the U.S. position 
was 84.1 percent. As a result, while individual General Assembly 
members do oppose the U.S. position in some cases, they are in 
agreement the vast majority of the time. The State Department's most 
recent voting practices report also takes note of this pattern, 
acknowledging that of 323 resolutions adopted by the General Assembly 
in 2017, 230 (71 percent) were done by consensus. Nevertheless, the 
Department changed its methodology this year, and does not include 
consensus decisions in its calculation of a country's concurrence with 
U.S. positions.

   Do you think this omits a critical piece of context regarding 
        member state voting practices?
   Since the White House wants to use these reports to help make 
        decisions regarding foreign aid and bilateral relations, why do 
        they put so much weight on a relatively small number of non-
        binding resolutions? Please be specific in your answer.

    Answer. The 2017 Report on Voting Practices in the United Nations 
utilizes updated methodology to ensure that abstentions are reflected 
and to emphasize the votes taken on final resolutions over those taken 
on preliminary texts. These updates are intended to capture more 
accurately the voting conduct of U.N. member states. Including 
consensus actions, while useful in demonstrating overall voting conduct 
in the General Assembly, does little to reveal voting trends on matters 
of key importance to the United States.
    Member state voting records are one element, but not the sole 
factor, considered when decisions are made about foreign assistance. 
Bilateral and regional economic, strategic, and political issues are 
important to U.S. interests. So is a country's voting record at the 
United Nations. The Security Council and the General Assembly are 
arguably the most important multilateral bodies in the world, dealing 
with vital issues such as threats to peace and security, disarmament, 
development, humanitarian relief, human rights, the environment, and 
narcotics--all of which directly affect major U.S. interests. The 
American people pay 22 percent of the U.N. regular budget and the 
assessed budgets of major U.N. agencies--more than twice as much as the 
next highest donor country. It is crucial that our investment serve 
American interests.

    Question 12. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. There are a few key points in my career that I can point 
to. In my role as the State Department liaison with the House 
Appropriations committee, I facilitated key discussions and provided 
justifications that enabled Congress to provide full funding for MEPI 
programs and other key country programs and NGOs such as in Egypt and 
Burma to name a couple.
    Most recently, I have led the U.S. delegation in the U.N.'s 
Administrative and Budgetary committee to secure critical funding for 
human rights officers in peacekeeping missions against fighting back 
against stiff cuts to these functions from China and Russia.
    The impact of these efforts has been to strengthen U.S. leadership 
and grow civil society and democracy in the countries we provide 
assistance. In the United Nations, the impact has been to strengthen 
the U.N.'s abilities to ensure protection of human rights is ensured in 
the various places where the U.N. operates.

    Question 13. How will you utilize U.S. Government assistance 
resources at your disposal to support democracy and governance, and 
what will you prioritize in processes to administer such assistance?

    Answer. I will continue to coordinate closely with the State 
Department and its bureaus and offices to ensure we can communicate 
clearly what the U.S. is doing to promote democracy and good 
governance, but also ensure coordination with U.N. efforts in this 
area.

    Question 14. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S.? What steps will you take to pro-actively address efforts to 
restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. Yes. And I will work closely with my fellow Ambassadors 
here at USUN to roll back any restrictions of NGOS participating at the 
U.N.

    Question 15. Will you and your leadership team actively engage with 
U.N. leaders on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press?

    Answer. Yes.

    Question 16. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. Yes.

    Question 17. Will you and your leadership team actively engage with 
U.N. interlocutors on the right of labor groups to organize, including 
for independent trade unions?

    Answer. Yes.

    Question 18. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? What challenges do the lesbian, 
gay, bisexual, transgender and intersex (LGBTI) people face? What 
specifically will you commit to do to help LGBTI people?

    Answer. Yes. The challenges LGBTI face in my area of influence are 
having the same benefits and administrative rules apply to them as 
other heterosexual couples/partners. The U.N. has sought to level this 
playing field with regards to U.N. staff benefits, access to 
healthcare, etc and the U.S. has been a strong supporter in protecting 
the Secretary General's authority to make these changes against stiff 
opposition including through a vote in the Fifth committee, led by 
Russia. I will continue to ensure the SG's authority is protected and 
there is equal treatment.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Cherith Norman Chalet by Senator Benjamin L. Cardin

    Question 1. Last year I asked the Government Accountability Office 
(GAO) to conduct a study on the cost effectiveness of the current U.N. 
peacekeeping mission (MINUSCA) in the Central African Republic (CAR) 
with a hypothetical operation undertaken by the U.S. military. Overall, 
the GAO analysis found that supporting MINUSCA is eight times less 
expensive for U.S. taxpayers than the deployment of U.S. forces to CAR.

   Do you agree with the conclusions of the GAO report?

    Answer. U.N. peacekeeping operations can be an effective mechanisms 
of burden-sharing to address the global challenges to international 
peace and security. When given an appropriate mandate, and when 
properly managed and equipped, no one doubts that peacekeeping missions 
can play an essential role supporting peace and saving lives. The GAO 
report notes the various relative strengths of both U.N. and U.S. 
operations, and is valuable in helping to inform the choices that 
policymakers must make when analyzing options to confront challenges.

    Question 2. Last year I asked the Government Accountability Office 
(GAO) to conduct a study on the cost effectiveness of the current U.N. 
peacekeeping mission (MINUSCA) in the Central African Republic (CAR) 
with a hypothetical operation undertaken by the U.S. military. Overall, 
the GAO analysis found that supporting MINUSCA is eight times less 
expensive for U.S. taxpayers than the deployment of U.S. forces to CAR.

   Is financially supporting peacekeeping in the strategic national 
        security interests of the United States?

    Answer. I believe that it is in the United States' national 
interest to support U.N. peacekeeping operations that have an 
appropriate mandate, support political solutions, and are properly 
managed and equipped. Peacekeeping reform is critical, and if 
confirmed, I will work to advance our reform agenda in order to make 
U.N. peacekeeping more effective. I agree with the President's 
statement during the U.N. General Assembly: if we work together and 
champion truly bold reforms, the U.N. will emerge as a stronger, more 
effective, more just, and greater force for peace and harmony in the 
world.

    Question 3. Last year I asked the Government Accountability Office 
(GAO) to conduct a study on the cost effectiveness of the current U.N. 
peacekeeping mission (MINUSCA) in the Central African Republic (CAR) 
with a hypothetical operation undertaken by the U.S. military. Overall, 
the GAO analysis found that supporting MINUSCA is eight times less 
expensive for U.S. taxpayers than the deployment of U.S. forces to CAR.

   What is the administration doing to ensure that the reduction in 
        U.S. contributions to U.N. peacekeeping--from 28.5 to 25 
        percent--does not impact the effectiveness of current and 
        future missions?

    Answer. There is an effort underway to obtain General Assembly 
agreement to reduce the actual U.S. peacekeeping assessment rate to 25 
percent. I believe that is the best way to avoid the potential problems 
that arrears can cause. If confirmed, I will work energetically to 
persuade other member states to reduce the U.S. assessment rate and to 
ensure that the arrears do not negatively affect the ability of the 
U.S. to advance our peacekeeping and broader national interests at the 
United Nations.
    Further, as Ambassador Haley stated during a March 2018 Security 
Council event, when given an appropriate mandate, and when properly 
managed and equipped, no one doubts that peacekeeping missions can play 
an essential role supporting peace and saving lives. That is why 
peacekeeping reform remains a top priority for the United States. If 
confirmed, I will continue to work tirelessly to advance peacekeeping 
reform, and to make peacekeeping operations more effective and 
efficient.

    Question 4. Last year I asked the Government Accountability Office 
(GAO) to conduct a study on the cost effectiveness of the current U.N. 
peacekeeping mission (MINUSCA) in the Central African Republic (CAR) 
with a hypothetical operation undertaken by the U.S. military. Overall, 
the GAO analysis found that supporting MINUSCA is eight times less 
expensive for U.S. taxpayers than the deployment of U.S. forces to CAR.

   Are you concerned about the growing amount of arrears the U.S. now 
        finds itself in related to peacekeeping?

    Answer. The United States is accumulating peacekeeping arrears as 
the result of not exceeding payment of 25 percent of total assessments 
for a U.N. peacekeeping operation. This rate reflects both U.S. law and 
the principle that no one country should pay more than one quarter of 
U.S. peacekeeping assessments. The 25 percent statutory cap for 
peacekeeping assessments is not new, having been first imposed by U.S. 
law in 1994. As long as the actual U.S. peacekeeping assessment rate 
exceeds 25 percent, there will be arrears.

    Question 5. Last year I asked the Government Accountability Office 
(GAO) to conduct a study on the cost effectiveness of the current U.N. 
peacekeeping mission (MINUSCA) in the Central African Republic (CAR) 
with a hypothetical operation undertaken by the U.S. military. Overall, 
the GAO analysis found that supporting MINUSCA is eight times less 
expensive for U.S. taxpayers than the deployment of U.S. forces to CAR.

   Are you concerned that the administration's reduction in financial 
        support for U.N. peacekeeping sends mixed signals to other 
        donor countries and/or countries who supply forces to various 
        missions, regarding U.S. priorities?

    Answer. It is essential for the United States to share the burden 
for protecting international peace and security with other countries. 
U.N. peacekeeping is a critical tool for leveraging international 
support to address such challenges. The United States believes, 
however, the shared responsibility of peacekeeping also means shared 
burdens and shared costs. One country should not shoulder more than one 
quarter of the U.N. peacekeeping budget, and I am committed to a more 
equitable distribution of the budget among member states. If confirmed, 
I will work closely with Ambassador Haley and U.N. member states to 
make this adjustment in a fair and sensible manner that protects U.S. 
interests as well as U.N. peacekeeping.

    Question 6. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. There are a few key points in my career that I can point 
to. In my role as the State Department liaison with the House 
Appropriations committee, I facilitated key discussions and provided 
justifications that enabled Congress to provide full funding for MEPI 
programs and other key country programs and NGOs such as in Egypt and 
Burma to name a couple.
    Most recently, I have led the U.S. delegation in the U.N.'s 
Administrative and Budgetary committee to secure critical funding for 
human rights officers in peacekeeping missions against fighting back 
against stiff cuts to these functions from China and Russia.
    The impact of these efforts has been to strengthen U.S. leadership 
and grow civil society and democracy in the countries we provide 
assistance. In the United Nations, the impact has been to strengthen 
the U.N.'s abilities to ensure protection of human rights is ensured in 
the various places where the U.N. operates.

    Question 7. What are the most pressing human rights issues at the 
United Nations? What are the most important steps you expect to take--
if confirmed--to promote human rights and democracy at the U.N.? What 
do you hope to accomplish through these actions?

    Answer. The most pressing human rights issues at the United Nations 
is the farcical inclusion of countries who not respect or promote human 
rights serving on U.N. bodies created to promote and protect human 
rights. Additionally, certain countries consistently try to reduce the 
staff and resources related to promotion of human rights in 
peacekeeping operations as well as mainstreaming a proactive human 
rights agenda. If confirmed, I will continue to work key allies to push 
back against funding reductions to the human rights component, but also 
build a broader country coalition that includes countries in the Group 
of 77 and China, a major grouping of developing countries at the U.N., 
to proactively promote the U.N.'s role in highlighting and defending 
human rights. Through these actions, the United States can provide the 
funding and support the U.N. needs to support affected communities and 
increase engagement with governments to see change.

    Question 8. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the U.N. in 
advancing human rights, civil society and democracy in general?

    Answer. The obstacles in supporting and strengthening the U.N.'s 
capacity to address human rights is the political will and 
philosophical differences held by various countries. They make use of 
the U.N.'s Administrative and Budgetary committee to reduce funding of 
U.N. offices and personnel dedicated to these issues and thus try to 
undermine and weaken the U.N.'s ability to address these issues. These 
challenges will continue to exist until all countries are able to come 
to agreement, ensuring full support of the U.N.'s efforts, both 
politically and financially, by all countries.

    Question 9. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will continue to ensure equal opportunities 
for all staff both in professional duties, be it representing the 
United States at the U.N., in negotiations, or internal coordination 
within the U.S. Mission and the State Department. I will also continue 
to ensure there is equal training opportunities and career development 
through various avenues be it higher education, conferences, or 
workshops on the specific issue area related to management and reform.

    Question 10. What steps will you take to ensure each of the 
supervisors at the U.S. Mission to the U.N. are fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I would engage supervisors on how they are 
providing opportunities for their staff and ways of collaborating such 
as through internal working groups on various issues. I would also 
engage them in ensuring they are establishing work/life balance for 
all.

    Question 11. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Cherith Norman Chalet by Senator Cory A. Booker

    Question 1. Earlier this year, the administration announced that it 
is withholding the bulk-approximately 83 percent or $300 million--of 
the U.S.'s annual contribution to the U.N. Relief and Works Agency for 
Palestine Refugees (UNRWA).
    As you know, UNRWA provides an array of critical services to 
Palestinian refugees in the West Bank, Gaza, Jordan, Lebanon, and 
Syria.
    If there is no change in funding in the next two months, UNRWA will 
need to close its more than 700 schools and stop education for more 
than 525,000 girls and boys.
    UNRWA would also close its 142 health clinics (which absorbed 9 
million individual visits in 2017) and stop food distribution and cash 
assistance for 1.3 million people. The loss of U.S. funding would leave 
a vacuum that could fuel instability and boost extremist groups like 
Hamas.

   How do you assess the impact of withholding funding for UNRWA on 
        our closest allies such as Jordan and Lebanon who are 
        struggling under the weight of delivering services to 
        Palestinian refugees and Syrian refugees?
   Do you believe the administration has adequately weighed the impact 
        of cutting off this funding and the stability of Jordan and 
        Lebanon?
   Is UNRWA aware of the specific reforms that are being requested by 
        the administration? Can you provide those in writing to the 
        committee?

    Answer. The administration is committed to promoting security and 
stability in the Middle East, including the security of our partners 
Israel, Jordan, and Lebanon. In addition, the administration regularly 
reviews its foreign assistance to identify how to leverage it to 
achieve U.S. objectives, including global and regional security, and to 
ensure that it is providing value to the U.S taxpayer. I believe the 
ongoing review of our assistance to the Palestinians, including UNRWA, 
is no different.
    My understanding is that the United States provided a voluntary 
contribution of $60 million to UNRWA. At the same time, I believe the 
United States has long voiced the need for UNRWA both to seek out new 
voluntary funding streams and increase burden-sharing among its donors, 
as well as to undertake more fundamental reforms. I agree that the 
United States should not be asked to bear a disproportionate share of 
UNRWA's costs.
    Jordan remains one of our closest allies. Former Secretary 
Tillerson underscored the enduring value of that partnership during his 
February 2018 visit to Jordan when he signed a new five-year, $6.375 
billion Memorandum of Understanding (MOU) with Foreign Minister Safadi. 
I believe that MOU, along with U.S. partnership on a range of issues, 
demonstrates the depth and breadth of the U.S. bilateral relationship 
with Jordan. In addition, since the start of the Syrian crisis, the 
United States, through the Bureau for Population, Refugees, and 
Migration as well as USAID/Food for Peace, has provided more than $1.1 
billion in humanitarian aid for programs to the Syrian response in 
Jordan to meet the life-saving needs of refugees, including food, 
shelter, and health care, in addition to humanitarian assistance at the 
regional level to support Iraqi, Palestinian, and other refugees in 
Jordan.

                              __________

                              NOMINATIONS

                              ----------                              


                        THURSDAY, JUNE 28, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James Risch, 
presiding.
    Present: Senators Risch [presiding], Gardner, Young, and 
Kaine.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. The meeting will come to order.
    Thanks, everyone who is in attendance, and thank you to our 
three nominees for agreeing to do this. It is a pleasure to 
welcome you here today.
    I want to thank each of you for being here and for your 
willingness to serve. The countries you are nominated to serve 
in are not the easiest posts that we have to offer. So I would 
like to thank not only you but also your families for the 
sacrifices they make in allowing you to pursue your role as an 
ambassador.
    The President's National Security Strategy talks about the 
reemergence of great power rivalry, and over the next few 
decades, competition between the United States, China, and 
Russia will have to be a factor in many U.S. policy decisions. 
All three posts represent some aspect of those challenges.
    China is quickly trying to make the Indian Ocean part of 
their near abroad, and they are working to exert influence on 
Sri Lanka and the Maldives. China used a debt crisis in Sri 
Lanka to seize control of a port in the country and has thereby 
guaranteed access for over 100 years. Meanwhile, infrastructure 
projects in the Maldives are increasingly funded by the 
Chinese.
    At the same time, the United States has its own interest in 
these countries. The United States is the largest export market 
for Sri Lanka, and ethnic reconciliation remains a key issue to 
seeing Sri Lanka prosper economically.
    In the Maldives, foreign fighters from there have posed a 
significant challenge in Iraq and Syria. With the erosion of 
democratic values and the rule of law in the Maldives, our 
ability to cooperate on counterterrorism issues and security in 
the Indian Ocean could shrink substantially.
    In Nepal, they have experienced a lot more diplomatic and 
economic engagement from both India and China. China has made 
significant inroads about pledging heavy infrastructure 
investment, as they have in several places in the world. I hope 
this investment does not corrupt the conduct of business and 
the rule of law. The new MCC compact between the United States 
and Nepal could help them continue to improve their governance. 
There is a moment of opportunity in Nepal and I hope we can 
seize it.
    While Nepal certainly faces challenges, it also has many 
potential opportunities. Mr. Berry, you will have the important 
job of helping to foster some of those opportunities.
    In the Kyrgyz Republic, U.S. interests have waxed and waned 
over the past decades. It was a key country during the hardest 
fighting in Afghanistan, but with the closure of Manas Air Base 
and the rejection of the bilateral cooperation agreement, the 
Kyrgyz Republic made a choice to move even closer to Russia. At 
the same time, Chinese influence is rising. China owns half the 
debt in the country and continues to invest in infrastructure 
projects as part of its One Belt, One Road initiative.
    I am concerned that Russia's efforts could limit our 
engagement options providing Moscow with more opportunities to 
increase their influence. Similarly, China is increasingly 
testing Russia's dominance in Central Asia, posing challenges 
to U.S. influence.
    Still, with new leadership in Bishkek and the president's 
anti-corruption initiative, it may be time for the United 
States to reengage. The recent contract with a U.S. company to 
modernize their hydropower turbines is a positive indicator of 
wanting to balance Russian and Chinese influence. In addition, 
there remain places for cooperation, especially on 
counterterrorism.
    Mr. Lu, you will have the challenging job of fostering 
progress in the republic's fight against corruption, as well as 
finding a balance between Russian, Chinese, and U.S. interests.
    Again, these are challenged posts, and we look forward to 
hearing your thoughts on how the United States can move forward 
with these countries.
    Senator Kaine?

                  STATEMENT OF HON. TIM KAINE,
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you to my chair. I appreciate him 
calling this hearing.
    And I just want, at the outset, to congratulate you for 
these nominations and thank you for your long careers of 
service at the State Department.
    Mr. Berry, I will say I have been to Lindsborg, Kansas. I 
know you went to Bethany College. My parents were from Wamego 
and El Dorado, Kansas. When I saw somebody who had spent some 
quality time in Bethany, I was particularly glad that you were 
going to be here today.
    Your careers are real tributes to you and to the wonderful 
people who work at the State Department. As I travel--and I 
know my chair feels the same way--we reach out to our Foreign 
Service professionals all over the globe. And we are very, very 
proud of the work they do and the work that you do.
    The subcommittee that Chairman Risch is over and that I am 
the ranking on has a long name, and I just call it Marrakesh to 
Bangladesh. It covers a lot of ground. And your three countries 
are three countries that we maybe do not hear as much about in 
subcommittee meetings or even the work of the full committee, 
and that is another important reason to have this hearing 
today. All three countries are open to partnerships with the 
United States. All three countries are increasingly looking to 
Russia and China. They need to do what is best for them, but we 
need to seize opportunities to create partnerships that are 
meaningful.
    Kyrgyzstan faces a lot of challenging economic issues and 
weak governmental institutions, and they are having an 
increased proclivity to move toward Russia. They were a very, 
very important ally of ours with an air base there as we worked 
during the thick of the war in Afghanistan. They now have an 
air base from Russia and Russia is looking to do a second base 
there.
    Nepal has longstanding historic ties with India, obviously, 
but is also seeking to expand its ties with China through the 
infrastructure investments that are being made as part of the 
One Belt, One Road initiative.
    And then finally, Sri Lanka and the Maldives are both 
important in geostrategic relations in the area. Senator Risch 
talked a little bit about this recent news about the port 
operation in Sri Lanka, and that is just an indication of the 
increasing Chinese presence in Sri Lanka and other countries as 
well.
    I will also be asking you some questions about what you can 
do consistent with building partnerships to press for a 
continued uptick in human rights reforms in the nations where 
you will serve. But I again congratulate you for the nomination 
and look forward to hearing your testimony and asking you 
questions.
    Thanks, Mr. Chair.
    Senator Risch. Thank you.
    We are now going to hear from each of the nominees, and we 
will start with Donald Lu of California, a career member of the 
Senior Foreign Service, class of minister-counselor, to be 
Ambassador Extraordinary and Plenipotentiary of the United 
States of America to the Kyrgyz Republic. So, Mr. Lu, the floor 
is yours for 5 minutes.

STATEMENT OF HON. DONALD LU, OF CALIFORNIA, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
            STATES OF AMERICA TO THE KYRGYZ REPUBLIC

    Ambassador Lu. Thank you, Senator Risch.
    Mr. Chairman, Mr. Ranking Minority Member, I am honored to 
be here today as President Trump's nominee to be the next 
Ambassador to the Kyrgyz Republic. I am grateful to the 
President and to Secretary Pompeo for the confidence they have 
placed in me, and if confirmed, I pledge to work closely with 
the Congress to advance our nation's interests in the Kyrgyz 
Republic.
    Mr. Chairman, I want to say my family could not be with me 
here today. They are in Albania where they are finishing the 
school year and getting ready for this next adventure. My wife 
assures me, though, that the kids are not playing video games 
and they are watching us on TV right now.
    Senator Risch. What time is it there?
    Ambassador Lu. It is 6 hours ahead, sir, 4:30.
    So if you will allow me, I would like to say a shout-out to 
my daughter Aliya and my son Kip, and my beautiful wife Ariel.
    As a son of an immigrant to the United States, I am 
particularly blessed to have served my country in the U.S. 
Foreign Service and the Peace Corps. I have seen the importance 
of American leadership in the world. For most of my 27 years in 
the State Department, I have worked in the emerging democracies 
of Eastern Europe and the former Soviet Union, including 3 
years as Deputy Chief of Mission in the Kyrgyz Republic. It 
would be my honor to return there as our Ambassador, a country 
renowned for its incredibly beautiful mountains, hospitable 
people, and rich cultural heritage.
    Mr. Chairman, for centuries, Central Asia has been at the 
crossroads of civilizations. Its strategic position has brought 
both tremendous opportunities and daunting challenges. If you 
will allow me, I will mention three.
    First, all of Central Asia, including the Kyrgyz Republic, 
faces the difficult challenge of the risk of radicalism at home 
and the spread of extremism from terrorist organizations 
operating from Afghanistan. The Kyrgyz Government reports 800 
of its citizens leaving to become foreign terrorist fighters. 
Consistent with the President's Afghanistan and South Asia 
strategy, we should be looking for new ways to support the 
Kyrgyz people in preventing violent extremism at home but also 
in enlisting their support in countering terrorist 
organizations operating from Afghanistan. We are already 
working to identify at-risk populations and working with the 
Kyrgyz people to create opportunity and jobs that deter the 
growth of extremism. We can and we should do more to defend 
both of our societies from terrorism.
    Second, in supporting entrepreneurship and economic 
prosperity, we as Americans have a lot to offer. Both 
bilaterally and as part of the C5 plus 1 process, the United 
States is working with all of the Central Asian countries to 
support greater interconnectedness of their economies with the 
global marketplace. For example, we are working with the Kyrgyz 
Republic to facilitate the sale of its surplus hydroelectric 
power during summer months to support the growing energy needs 
of Afghanistan and Pakistan. We support the development of a 
positive business climate that will enable American investors 
and American traders to compete fairly with business people 
from all over the world to develop a robust Kyrgyz economy.
    And third, I believe we can have an open and honest 
dialogue with the new Kyrgyz Government about how we can 
support stability and security while promoting our common 
values of democracy and support for human rights. This dialogue 
should be built on trust, respect, and confidence and not one 
country lecturing another. We should work together to find ways 
to promote civil society, media freedom, an independent 
judiciary, and the rule of law.
    Finally, Mr. Chairman, if you will allow me, I would like 
to tell a story about the courage of the Kyrgyz and American 
people when faced with a common peril. In 2004, a Soviet-built 
MI-8 Kyrgyz helicopter crashed in a snowstorm in the remote 
Tien-Shan mountain range. The military believed there were 
survivors but weather conditions prevented an air rescue. By 
chance, some of our embassy staff, including a former U.S. Army 
Ranger, were conducting a snowmobile training exercise in the 
area for the Kyrgyz border patrol. The American trainers, with 
the support of the Kyrgyz border guard, set off in the night to 
find the survivors. They drove in dangerous conditions with 
sub-zero temperatures and in near zero visibility conditions. 
They, with some difficulty, found the passengers and crew. Some 
of them were very seriously injured. They loaded them onto 
makeshift sleds and they pulled them behind the snowmobiles 
through the night to safety. That night they rescued every one 
of the survivors. This is what Americans and the Kyrgyz people 
can do together.
    If confirmed, I will take seriously my role as Chief of 
Mission to manage and safeguard our most precious resources, 
our people, including our local staff who take great risks to 
fulfill their duties on behalf of our mission, our embassy, and 
the strong reputation of the United States abroad. If 
confirmed, I look forward to building the relations between our 
two great nations and defending and promoting the interests of 
the United States in the Kyrgyz Republic.
    Thank you.
    [Ambassador Lu's prepared statement follows:]


                    Prepared Statement of Donald Lu

    Mr. Chairman, Mr. Ranking Member, members of the committee, I am 
honored to appear here today as President Trump's nominee to be the 
next U.S. Ambassador to the Kyrgyz Republic. I am grateful to the 
President and to Secretary Pompeo for the confidence they have placed 
in me. If confirmed, I pledge to work closely with the Congress to 
advance our nation's interests in the Kyrgyz Republic.
    As the son of an immigrant to the United States, I am particularly 
blessed to have served my country in the U.S. Foreign Service and the 
Peace Corps. I have seen the importance of American leadership in the 
world. For most of my 27 years in the State Department, I have worked 
in the emerging democracies of Eastern Europe and the former Soviet 
Union, including three years as Deputy Chief of Mission in the Kyrgyz 
Republic. It would be my honor to return to the Kyrgyz Republic as our 
ambassador, to a country renowned for its incredibly beautiful 
mountains, hospitable people, and rich cultural heritage.
    Mr. Chairman, for centuries Central Asia has been at the crossroads 
of civilizations. Its strategic position has brought both tremendous 
opportunities and daunting challenges. Let me mention three.
    First, all of Central Asia, including the Kyrgyz Republic, faces 
the difficult challenge of the risk of radicalism at home and the 
spread of extremism from terrorist organizations operating from 
Afghanistan. The Kyrgyz Government reports 800 of its citizens leaving 
to become foreign terrorist fighters. Consistent with the President's 
Afghanistan and South Asia Strategy, we should be looking for new ways 
to support the Kyrgyz people in preventing violent extremism at home 
but also in enlisting their support in countering terrorist 
organizations operating from Afghanistan. We are already working to 
identify at risk populations and working with the Kyrgyz people to 
create opportunity and jobs that deter the growth of extremism. We can 
and we should do more to defend both of our societies from terrorism.
    Second, in supporting entrepreneurship and economic prosperity, we 
as Americans have a lot to offer. Both bilaterally, and as part of the 
C5+1 process, the United States is working with all of the Central 
Asian countries to support greater interconnectedness of their 
economies in a global marketplace. For example, we are working with the 
Kyrgyz Republic to facilitate the sale of its surplus hydroelectric 
power during the summer months to support the growing energy needs of 
Afghanistan and Pakistan. We support the development of a positive 
business climate that will enable American investors and traders to 
compete fairly with businesspeople from all over the world to develop a 
robust Kyrgyz economy.
    And third, I believe we can have an open and honest dialogue with 
the new Kyrgyz Government about how we can support stability and 
security, while promoting our common values of democracy and support 
for human rights. This dialogue should be built on trust, respect, and 
confidence and not one country lecturing another.
    We should work together to find ways to promote civil society, 
media freedom, an independent judiciary and the rule of law.
    Finally, allow me to share a story of the courage of the Kyrgyz and 
American people when faced with a common peril. In 2004, a Soviet-built 
MI-8 Kyrgyz helicopter crashed in a snowstorm in the remote Tien-Shan 
mountain range. The military believed there were survivors but weather 
conditions prevented an air rescue. By chance, some of our embassy 
staff, including a former U.S. Army Ranger, were conducting a 
snowmobile training exercise for the Kyrgyz border patrol. The American 
trainers with the support of the Kyrgyz border guards set off in the 
night to find the survivors. They drove in dangerous conditions with 
sub-zero temperatures and in near zero-visibility conditions. They 
found the passengers and crew, some seriously injured. They loaded them 
onto makeshift sleds and pulled them behind the snowmobiles through the 
night to safety. That night they rescued every one of the survivors. 
This is what Americans and Kyrgyz can do together.
    If confirmed, I will take seriously my role as Chief of Mission to 
manage and safeguard our precious resources--our people, including our 
local staff who often take great risks in fulfilling their duties on 
behalf of the mission, our embassy and the strong reputation of the 
United States abroad. If confirmed, I look forward to building the 
relations between our two great nations and defending and promoting the 
interests of the United States in the Kyrgyz Republic.


    Senator Risch. Thank you, Mr. Lu. That is an inspiring 
story of the cooperation between the Kyrgyz and the United 
States. So thank you for sharing that with us.
    We now have two nominees from the great State of Colorado. 
So I would like to yield to my good friend, Senator Gardner, 
who will introduce, first of all, Mr. Berry.
    Senator Gardner. Thank you, Senator Risch. Thank you for 
this opportunity. And congratulations to all three of our 
nominees this morning, and thank you very much for your public 
service. And to your families who are here, thank you very much 
for the public service that you have been a part of these 
years.
    It is a great honor to be able to introduce two Coloradans 
on the same panel. Colorado has a great legacy and history of 
Foreign Service officers, Senator Risch. So thank you.
    I would like to introduce real quick Randy Berry, of 
course, of Colorado, a career member of the Senior Foreign 
Service, class of minister-counselor to be Ambassador 
Extraordinary and Plenipotentiary of the United States of 
America to the Federal Democratic Republic of Nepal, a fifth 
generation Coloradan, if I recall, from Custer County. And your 
neighbor there to the right has got a place in Penrose. So this 
is pretty incredible that--this is an amazing coincidence here.
    The Honorable Alaina B. Teplitz, as well from Colorado, a 
career member of the Senior Foreign Service, class of minister-
counselor, to be Ambassador Extraordinary and Plenipotentiary 
of the United States of America to the Democratic Socialist 
Republic of Sri Lanka and to serve concurrently and without 
additional compensation--sorry about that--[Laughter.]
    Senator Gardner [continued]. As Ambassador Extraordinary 
and Plenipotentiary of the United States of America to the 
Republic of the Maldives.
    Welcome to you both.
    Thank you for the opportunity of introducing.
    Congratulations.
    Senator Risch. Thank you.
    Mr. Berry, the floor is yours.

 STATEMENT OF RANDY W. BERRY, OF COLORADO, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
 STATES OF AMERICA TO THE FEDERAL DEMOCRATIC REPUBLIC OF NEPAL

    Mr. Berry. Thank you, Mr. Chairman, Ranking Minority 
Member, members of the committee. It is an honor for me to be 
here today as the President's nominee for U.S. Ambassador to 
Nepal.
    I would like to take a moment to acknowledge my family 
without whom I would have some difficulty getting up in the 
morning. I am very, very pleased to be enthusiastically 
supported here by my spouse, Pravesh Singh; by my sister, Rita 
Wilson, who is representing the family out in Colorado; and my 
two most important foreign policy advisors, my 6-year-daughter 
Aria who just graduated from kindergarten, I should note, and 
my 5-year-old son Xander.
    Though I was educated in Kansas, as you noted, Senator, 
indeed, we were comparing notes, and I am in fact a six 
generation Coloradan my sister has informed me. I grew up by 
learning the value of a strong work ethic and commitment to 
responsibility by watching and working alongside my parents who 
are still at the helm of our legacy family-run cattle ranch, as 
you noted, down in Custer County, now nearly 120 years since it 
was founded by my family. Though I was raised in the shadow of 
the great Sangre de Cristo range of the southern Rockies, my 
life as a Foreign Service officer since then over the last 25 
years has taken me around the world and back. Nepal, much like 
my home State and America itself, is a place defined by great 
diversity of landscapes and people and is home to another of 
the world's great mountain ranges, the Himalaya.
    South Asia has figured prominently in my career, from my 
very first assignment in the Foreign Service in Bangladesh in 
1993 to my current role as Deputy Assistant Secretary in the 
Bureau of Democracy, Human Rights, and Labor where I have 
worked hard to advocate for the principles of human rights and 
religious freedom across South and Central Asia specifically. A 
decade ago, I had the privilege of serving at our embassy in 
Nepal as the Deputy Chief of Mission. And back when I arrived 
in Kathmandu in 2007, the country was a monarchy and had just 
emerged from a 10-year conflict that claimed nearly 20,000 
lives. But today Nepal has embarked on an ambitious peace 
process, promulgated a new constitution, and is making a 
remarkable and long-awaited transition to stability.
    Years of U.S. diplomatic engagement, development 
assistance, military cooperation, and disaster preparedness 
have advanced American interests while helping open the way as 
well for Nepal to become a more peaceful, stable democracy. 
With the successful conclusion of historic elections in 2017, 
Nepal now stands at a turning point. The new government has 
prioritized reforms to unleash economic growth and development 
and has announced a zero tolerance stance on corruption.
    Mr. Chairman, my vision for the bilateral relationship 
between Nepal and the United States builds on the substantial 
progress and also sets out a few key priorities. And if 
confirmed, I look forward to leading our dynamic and talented 
team of American and Nepali staff at the U.S. mission in 
Kathmandu to deepen our partnership and further our shared 
interests and values.
    First, we will work to promote American security by 
supporting a stable, secure, democratic, and sovereign Nepal. 
We will encourage transparent and accountable governance, 
highlight the importance of respect for human rights and 
religious freedom, urge the full implementation of a credible 
transitional justice process, and advocate for political 
inclusion of Nepalis of every background. By supporting Nepal's 
own priorities, we will position ourselves to work together 
more effectively to counter transnational organized crime, 
bolster border security, and strengthen the rule of law in 
Nepal.
    Second, we will work to increase American prosperity by 
supporting Nepal's development as a reliable economic partner. 
Though modest in overall volume, American exports to Nepal have 
doubled over the last 5 years. Nepal's commitment to reform and 
our embassy's efforts to promote a transparent investment 
climate provide American firms even great opportunity in this 
growing market. USAID support for a more productive 
agricultural sector and a better business environment showcases 
the best of American innovation while also helping Nepal 
realize its own economic potential. The jointly funded $630 
million Millennium Challenge Corporation compact signed last 
September will develop and sustain key parts of the country's 
electricity and transportation infrastructure, better 
integrating it into the regional economy.
    Third, we will support Nepal's efforts to transform itself 
into a self-reliant, independent, and resilient partner for the 
United States. If confirmed, I will continue U.S. efforts to 
empower civil society, women, the media, and the public to 
become more active participants in the country's future. As 
U.S. assistance continues to support the Nepali Government's 
reconstruction program in the wake of the devastating 2015 
earthquake, we will also work to help enable Nepal to engage 
within the South Asian region and in international fora in a 
manner consistent with its sovereignty. In so doing, we aim to 
support the administration's Indo-Pacific strategy which seeks 
to build strong inter-regional economic and security links.
    Mr. Chairman, none of this would be possible without the 
strong and continued support of Congress for the United States' 
efforts in Nepal. I thank this committee and others in Congress 
for that continuing support, and if confirmed, I look forward 
to working with you and the other members over the coming 
years.
    Thank you and I look forward to your questions.
    [Mr. Berry's prepared statement follows:]


                   Prepared Statement of Randy Berry

    Mr. Chairman, Mr. Ranking Member, members of the committee, it is 
an honor to appear before you today as the President's nominee for U.S. 
Ambassador to Nepal. I am very grateful to President Trump and 
Secretary Pompeo for their confidence in me.
    I am a proud fifth-generation Coloradan, and grew up learning the 
value of a strong work ethic and commitment to responsibility by 
watching my parents, still at the helm of our legacy family-run cattle 
ranch in Custer County, now nearly 120 years since its founding. Raised 
in the shadow of the Sangre de Cristo range of the southern Rockies, my 
life as a Foreign Service Officer over the last 25 years has taken me 
around the world and back. Nepal, like my home state and America 
itself, is a place defined by diversity of landscapes and people, and 
is home to another of the world's great mountain ranges--the Himalaya.
    South Asia has figured prominently in my career, from my very first 
assignment in Bangladesh in 1993 to my current role as Deputy Assistant 
Secretary in the Bureau of Democracy, Human Rights, and Labor, where I 
have worked hard to advocate the principles of human rights and 
religious freedom across South and Central Asia. A decade ago, I had 
the privilege of serving at our Embassy in Nepal as Deputy Chief of 
Mission. When I first arrived in Kathmandu in 2007, the country was 
still a monarchy and had just emerged from a ten-year conflict that 
claimed nearly 20,000 lives. Today, Nepal has embarked on an ambitious 
peace process, promulgated a new constitution, and is making a 
remarkable and long-awaited transition to stability.
    Years of U.S. diplomatic engagement, development assistance, 
military cooperation, and disaster preparedness and risk reduction have 
advanced our interests while helping open the way for Nepal to become a 
more peaceful, stable democracy. With the successful conclusion of 
historic elections in 2017, Nepal now stands at a turning point. The 
new government has prioritized reforms to unleash economic growth and 
development and announced a zero-tolerance stance on corruption.
    Mr. Chairman, my vision for the bilateral relationship between 
Nepal and the United States builds on this progress and sets out some 
key priorities. If confirmed, I look forward to leading our dynamic 
team of American and Nepali staff at the U.S. Embassy to deepen our 
partnership and further our shared interests and values.
    First, we will work to promote American security by supporting a 
stable, secure, democratic, and sovereign Nepal. We will encourage 
transparent and accountable governance, highlight the importance of 
respect for human rights and religious freedom, urge the full 
implementation of a credible transitional justice process, and advocate 
political inclusion of Nepalis of all backgrounds. By supporting 
Nepal's own priorities, we will position ourselves to work together 
more effectively to counter transnational organized crime, bolster 
border security, and strengthen the rule of law.
    Second, we will work to increase American prosperity by supporting 
Nepal's development as a reliable economic partner. Though modest in 
overall volume, American exports to Nepal have doubled over the past 
five years. Nepal's commitment to reform, and our Embassy's efforts to 
promote a transparent investment climate, provide American firms even 
greater opportunity in this growing market. USAID support for a more 
productive agricultural sector and a better business environment 
showcases the best of American innovation while helping Nepal realize 
its economic potential. The jointly funded $630 million Millennium 
Challenge Corporation (MCC) compact signed last September will develop 
and sustain key parts of the country's electricity and transportation 
infrastructure, better integrating it into the regional economy.
    Third, we will support Nepal's efforts to transform itself into a 
more self-reliant, independent, and resilient partner. If confirmed, I 
will continue U.S. efforts to empower civil society, women, the media, 
and the public to become more active participants in the country's 
future. As U.S. assistance continues to support the Nepali Government's 
reconstruction program in the wake of the devastating 2015 earthquake, 
we will also work to help enable Nepal to engage within the South Asian 
region and in international fora in a manner consistent with its 
sovereignty. In so doing, we will support the administration's Indo-
Pacific strategy, which seeks to build strong inter-regional economic 
and security links.
    Mr. Chairman, none of this will be possible without the strong and 
continued support of Congress for the United States' efforts in Nepal. 
I thank this committee and others in Congress for that support and, if 
confirmed, look forward to working with you and other members over the 
coming years.
    Thank you and I look forward to your questions.


    Senator Risch. Thank you very much.
    Ms. Teplitz, you are no stranger to this process. We 
welcome you again. Please, the floor is yours.

  STATEMENT OF HON. ALAINA B. TEPLITZ, OF COLORADO, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
  OF THE UNITED STATES OF AMERICA TO THE DEMOCRATIC SOCIALIST 
 REPUBLIC OF SRI LANKA, AND TO SERVE CONCURRENTLY AND WITHOUT 
    ADDITIONAL COMPENSATION AS AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE REPUBLIC 
                          OF MALDIVES

    Ambassador Teplitz. Thank you, Mr. Chairman, Mr. Ranking 
Member, Senator Gardner, I am honored to be here before you as 
the President's nominee for U.S. Ambassador to Sri Lanka and 
concurrently to Maldives, with no extra pay. [Laughter.]
    Ambassador Teplitz. I am also very pleased that members of 
my family could join me today. Their support and encouragement 
is what has put me in this chair. My mother Marsha and now her 
partner Ron have visited me no matter how remote the location 
in every country in which I have served in the Foreign Service, 
except for Afghanistan. My husband Robert, a former marine, has 
kept me grounded. His love and loyalty really buoy me during 
challenging times. I am also very fortunate to have support 
from my extended family, and my brother-in-law Frank and 
sister-in-law Sarah were able to join us today coming from 
Virginia.
    Other family and friends, including my two college-aged 
sons, were unable to be present. My son Max is studying abroad 
in Kosovo this summer, while his brother Miles is attending a 
summer course in physics and taking emergency medical 
technician training. My father Jack and my stepmother Marcella 
are at their home in Peoria, Illinois where they are deeply 
involved in their community, reminding me of what is best about 
Americans and the democratic values that we nurture.
    And as the present U.S. Ambassador to Nepal, I have really 
relied on two previous tours in the region in Bangladesh and 
Afghanistan, as well as a South and Central Asia Bureau 
assignment to provide a foundation of understanding about the 
culture, history, and unique geopolitics of South Asia. I am 
going to continue to build on this experience to carry out my 
duties as Ambassador to Sri Lanka and Maldives, if confirmed.
    Mr. Chairman, Sri Lanka and the Maldives are important to 
the wider security and prosperity of the Indo-Pacific region. 
Both nations are positioned astride key shipping lanes that 
connect the Straits of Hormuz and Malacca, the free navigation 
of which is vital to U.S. economic and security interests. We 
must also be mindful of the economic and commercial 
opportunities each country affords, and the importance of 
working with them to maintain a rules-based international 
order.
    Sri Lanka has come a long way since voters in 2015 rejected 
the corruption, strife, and repression of the past and threw 
their support behind a reform, reconciliation, and 
accountability agenda. However, the pace of progress on reform 
and justice has been slow, and as anti-Muslim riots in March so 
painfully demonstrated, the work of mending inter-ethnic and 
inter-religious fissures remains incomplete. We continue to 
support Sri Lanka's efforts to make good on its commitments to 
its people to come to terms with its past, to implement justice 
and accountability measures, and to secure a peaceful, 
prosperous future. We also support growth of Sri Lanka's 
capacity to make greater contributions to regional stability 
while protecting its own sovereignty and national interests. 
Sri Lanka's success in this endeavor will make it a stronger 
partner to the United States and contribute to our shared 
vision of a free and open Indo-Pacific.
    Mr. Chairman, the Maldives is a nation of atolls that faces 
serious challenges, from the spread of extremism and 
environmental threats such as encroaching seas, coastal 
degradation, and natural disasters, to the curtailment of 
freedom of expression and other democratic rights under the 
current government. The February suspension of the 
constitution, imprisonment of supreme court justices prompted 
condemnation from around the international community and from 
the United States. We remain concerned about this situation and 
urge Maldives' leadership to abide by the rule of law and to 
allow democratic institutions to function.
    In areas where our interests intersect, such as countering 
violent extremism, we continue to engage the Maldives. It is 
possible that a return to the democratic path would make a 
wider array of cooperation possible.
    Mr. Chairman, if confirmed, I will work in both Sri Lanka 
and Maldives to advance U.S. values and a shared vision of good 
governance, transparent economic development, free navigation 
and commerce, fair and open investment environments and a 
stable rules-based regional order. And I will look forward to 
leading a mission committed to these goals.
    I would like to express my appreciation to this committee 
and its members for your support of U.S. engagement in Sri 
Lanka and Maldives and to thank you for considering my 
nomination.
    [Ambassador Teplitz's prepared statement follows:]


                  Prepared Statement of Alaina Teplitz

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as the President's nominee for U.S. Ambassador to Sri 
Lanka and, concurrently, to Maldives. I am very grateful to President 
Trump and Secretary Pompeo for their confidence in me.
    I am very pleased that members of my family could join me today. 
Their support--and encouragement--have put me in this chair. My mother 
Marsha, and now her partner Ron, have visited me, no matter how remote 
the location, in every country I've served in the Foreign Service, 
except for Afghanistan. My husband, Robert, a former Marine, keeps me 
grounded; his love and loyalty buoy me during challenging times. I am 
also fortunate to have support from my extended family--my brother-in-
law Frank and sister-in-law Sarah are able to join today.
    Other family and friends, including my two college-aged sons, were 
unable to be present. My son Max is studying abroad in Kosovo this 
summer while his brother Miles is attending a summer course in physics 
and participating in Emergency Medical Technician training. My father, 
Jack, and stepmother, Marcella, remain at their home in Peoria, 
Illinois, where they are deeply involved in their community, reminding 
me of what is best about Americans and the democratic values we 
nurture.
    As the present U.S. Ambassador to Nepal, I have relied on two 
previous tours in the region, in Bangladesh and Afghanistan, as well as 
a South and Central Asia Bureau assignment to provide a foundation of 
understanding about the culture, history, and unique geopolitics of 
South Asia. I will continue to build on this experience to carry out my 
duties as Ambassador to Sri Lanka and Maldives, if confirmed.
    Mr. Chairman, Sri Lanka and Maldives are important to the wider 
security and prosperity of the Indo-Pacific region. Both nations are 
positioned astride key shipping lanes that connect the Straits of 
Hormuz and Malacca, the free navigation of which is vital to U.S. 
economic and security interests. We must also be mindful of the 
economic and commercial opportunities each country affords, and the 
importance of working with them to maintain a rules-based international 
order.
    Sri Lanka has come a long way since voters in 2015 rejected the 
corruption, strife, and repression of the past and threw their support 
behind a reform, reconciliation, and accountability agenda. However, 
the pace of progress on reform and justice has been slow, and, as anti-
Muslim riots in March so painfully demonstrated, the work of mending 
inter-ethnic and inter-religious fissures remains incomplete. We 
continue to support Sri Lanka's efforts to make good on its commitments 
to its people to come to terms with its past, implement justice and 
accountability measures, and secure a peaceful, prosperous future. We 
also support growth of Sri Lanka's capacity to make greater 
contributions to regional stability while protecting its own 
sovereignty and national interests. Sri Lanka's success in this 
endeavor will make it a stronger partner to the United States and 
contribute to our shared vision of a free and open Indo-Pacific.
    Mr. Chairman, Maldives is a nation of atolls that faces serious 
challenges, from the spread of extremism and environmental threats such 
as encroaching seas, coastal degradation, and natural disasters, to the 
curtailment of freedom of expression and other democratic rights under 
the current government. The February suspension of the constitution, 
imprisonment of supreme court justices and opposition politicians, and 
attacks on fundamental liberties prompted condemnation from across the 
international community and from the United States. We remain concerned 
about this situation and urge Maldives' leadership to abide by the rule 
of law and to allow democratic institutions to function.
    In areas where our interests intersect, such as countering violent 
extremism, we continue to engage Maldives. Its return to the democratic 
path would make a wider array of cooperation possible.
    Mr. Chairman, if confirmed, I will work in both Sri Lanka and 
Maldives to advance U.S. values and a shared vision of good governance, 
transparent economic development, free navigation and commerce, fair 
and open investment environments, and a stable, rules-based regional 
order. I would like to express my appreciation to this committee and 
its members for your support of U.S. engagement in Sri Lanka and 
Maldives and to thank you for considering my nomination.


    Senator Risch. Thank you so very much. Again, thanks to all 
of you for being willing to take on these posts.
    We are going to go to a round of questions now. I am going 
to start with you, Mr. Lu.
    The Kyrgyz Republic has a deep relationship with Russia, as 
we all know, and often aligns itself with Russian policy like 
the Eurasian Economic Union or Russian calls to kick the U.S. 
out of Manas Air Base. At the same time, China owns half the 
country's debt and continues to invest in critical 
infrastructure as well.
    What are you views on the prospects of U.S. policy in the 
republic given those serious challenges?
    Ambassador Lu. Thank you, Mr. Chairman.
    Very true that Russia has over the past several years been 
increasing its leverage on the Kyrgyz Republic, economic, 
political, military leverage that takes a form, as you 
suggested, sir, of the Eurasian Economic Union, also the 
Collective Security Treaty Organization. You mentioned earlier 
flying military aircraft out of the Kant Air Base near Bishkek. 
There is also the dependence on remittances now of Kyrgyz 
workers working in Russia.
    If confirmed, sir, I will try to articulate a positive 
forward-looking agenda with the Kyrgyz Republic. I will not 
shrink from recognizing when the Russian Government is 
introducing disinformation about our interests, and I will not 
allow our relations to be defined by Russian provocation.
    Concerning China, China is aggressively pushing an economic 
agenda throughout Central Asia but particularly the Kyrgyz 
Republic. This includes purchasing of large amounts of 
infrastructure, roads, hydroelectric power, heating systems for 
major cities. As you mentioned, they are the owners of half of 
the Kyrgyz external debt, about $1.7 billion in debt. I think 
many economists would argue that is not commercially reasonable 
for one creditor to provide that much debt exposure to one 
country. If confirmed, I will be steadfast in recommending to 
the Kyrgyz Government that they be mindful of the risks of 
overdependence on one creditor.
    And lastly, I would say the real way to boost the economy 
of the Kyrgyz Republic is not by taking out loans from China. 
It is about fixing the business climate to attract investors 
and traders from all over the world, including the United 
States.
    Senator Risch. Thank you very much.
    I have always observed that when you have a substantial 
flow of remittances, it really binds the two countries, as we 
have seen in many other examples. Can you give us some kind of 
sense of the volume we are talking about here?
    Ambassador Lu. Sir, the last estimate I saw was 30 percent 
of its gross domestic product of the Kyrgyz Republic. So very 
substantial.
    Senator Risch. Very significant.
    Senator Kaine?
    Senator Kaine. Thank you.
    Ambassador Lu, first a question for you about the Kyrgyz 
Republic, just to continue on the theme that we are on. This is 
a country that has had significant challenges with corruption. 
Transparency International has indicated that it has one of the 
worst records in the world. Talk a little bit about the current 
government's effort to tackle corruption and how the United 
States can be helpful.
    Ambassador Lu. Thank you, Senator.
    The Kyrgyz Republic ranks 135 out of 180 countries 
according to Transparency International on the rankings on 
corruption.
    President Jeenbekov, the new president who was elected in 
October, has said that fighting corruption is one of his top 
priorities, and he is regarded as a national security threat. 
And he adopted several anti-corruption measures in February, to 
include continuation of e-government platforms to help reduce 
the amount of instances in which citizens must interact with 
government officials at a working level.
    We have been working in this space for a long through USAID 
and our public affairs platforms to promote good governance and 
anti-corruption. I think there is more we can do. This was a 
focus of my time as Ambassador in Albania, and if confirmed, 
this will be a focus of my attention in the Kyrgyz Republic.
    Senator Kaine. Excellent.
    The republic ranks as a tier 2 nation with respect to 
trafficking in persons in the State Department's report for the 
last 8 years. They have made some progress. Notably, in May of 
2016, the republic created the Coordination Council on 
Migration to direct efforts both on migration issues but 
including focusing on human trafficking and improving their 
record. What do you think we might be able to do to assist them 
in that work?
    Ambassador Lu. Absolutely. There has been important 
progress, as you suggest, Senator, but also a number of 
setbacks. In terms of the setbacks, I would note over the last 
3 years, every year a decline in the number of investigations 
and prosecutions of traffickers.
    The progress--you started talking about that. There is also 
the approval of a national action plan and the piloting of a 
victim identification program and national referral mechanism. 
These are really important starts, but we would like to see 
more than just plans and legislation. Real differences made on 
the ground.
    Again, when I was Ambassador in Albania, we worked quite a 
bit on anti-trafficking. I, if confirmed, will make that a 
priority of my time in the Kyrgyz Republic.
    Senator Kaine. Thank you, Ambassador Lu.
    Mr. Berry, I hate to follow a really competent person in a 
job. [Laughter.]
    Senator Kaine. I like to follow like a really incompetent 
person into a job. And so you are sitting next to this person 
and you are going to be following her in the position. I do not 
envy you.
    Nepal is a very poor nation, and yet it has a number of 
under-utilized assets, and one is hydropower. What is being 
done to harness that energy to help the country, and what might 
the United States or U.S. firms do to help Nepal with that 
opportunity?
    Mr. Berry. Well, thank you for that question, Senator, and 
also for addressing certainly one of my greatest anxieties as I 
prepare for this assignment. The good thing is I know where to 
find Ambassador Teplitz pretty much at any time.
    Indeed, Nepal is a place of great potential, and it is one 
of the reasons I am so excited about the potential of heading 
out there, if confirmed. One of those is really the ability to 
develop, to benefit from, and to, where it is possible, export 
energy as well.
    The United States is doing a lot I think to help Nepal 
realize that. In order to really develop those basic 
capacities, the great need is infrastructure. Through this new 
compact that has been signed and will sometime in the middle of 
next year go live, the U.S. will be committing $500 million, 
supplemented by $130 million devoted by the Government of 
Nepal, to take on two significant components. The vast majority 
of that money, in excess of $500 million, will go towards the 
development of transmission lines, high voltage transmission 
lines, to the Indian border, which will help disseminate that 
power resource, and another residual amount that will go the 
maintenance and construction of roads. So I believe again that 
this is a great potential for Nepal, and I look forward to 
seeing what I could do, if confirmed, in helping develop them.
    Senator Kaine. Nepal is a very poor country. A quarter of 
the population lives below the poverty level. These projects 
can be helpful.
    Nepal is also still recovering from a very damaging April 
2015 earthquake. How is that recovery going and what are the 
remaining steps that should be taken? And talk a little bit 
about the role of USAID and other institutions of the American 
Government in helping Nepal advance people out of poverty?
    Mr. Berry. Of course, thank you.
    Well, I think the short answer is that much has been done 
but much still remains to be done. You know that I am proud 
that the United States was there with a presence and helping in 
the immediate aftermath of the quake, but importantly has 
remained there throughout that period that my esteemed 
colleague to my right has overseen a very strategic and smart 
engagement and commitment of resources from USAID where we have 
helped the Nepalis stand up what is now the world's largest 
owner-driven housing program where our devotion of 
approximately $190 million to help that effort has really been 
supplemented by funds that the Nepali Government has also 
devoted to this cause.
    I believe that there is some concern about the speed of 
some of that home construction. I think one of the critical 
things at least I have learned, as we look at this issue, is 
that ensuring that the types of structures that replace those 
that were destroyed in the quake are, in fact, resistant to the 
type of disaster that is potentially going to happen again in 
the future.
    Senator Kaine. Thank you.
    Well, before I move and ask Ambassador Teplitz a question 
or two, I will just also acknowledge that the trafficking 
report for Nepal in 2017 said, quote, Nepal does not fully meet 
the minimum standards for the elimination of trafficking. So 
this is also an effort that I know you and your team will be 
focused on, should you be confirmed.
    Ambassador Teplitz, I just want to read the lead in an 
article that I just saw, an extensive article in the ``New York 
Times'' from a couple of days back, how China got Sri Lanka to 
cough up a port. And it refers to the comments that the 
chairman was making in his opening.
    Every time Sri Lanka's President Mahinda Rajapaksa--forgive 
me if I have got it wrong on the pronunciation--turned to his 
Chinese allies for loans and assistance with an ambitious port 
project, the answer was yes. Yes, though feasibility studies 
said the port would not work. Yes, though other frequent 
lenders like India had refused. Yes, though Sri Lanka's debt 
was ballooning rapidly.
    Over years of construction and renegotiation with China 
Harbor Engineering Company, one of Beijing's largest state-
owned enterprise, the Hambantota Port development project 
distinguished itself mostly by failing, as predicted. With tens 
of thousands of ships passing by one of the world's busiest 
shipping lanes, the port drew only 34 ships in 2012.
    And then the port became China's.
    Mr. Rajapaksa was voted out of office in 2015, but Sri 
Lanka's new government struggled to make payments on the debt 
he had taken on. Under heavy pressure and after months of 
negotiations with the Chinese, the Government handed over the 
port and 15,000 acres of land around it for 99 years last 
December. The transfer gave China control of the territory just 
a few hundred miles off the shores of a rival India and the 
strategic foothold along the critical commercial and military 
waterway. The case is one of the most vivid examples of China's 
ambitious use of loans and aid to gain influence around the 
world and its willingness to play hardball to collect.
    What is the Sri Lankans' public reaction to this deal with 
China and this new state of affairs where they have control 
over this operation for 99 years?
    Ambassador Teplitz. Senator, thank you for that really 
important question. As I noted in my opening statement, Sri 
Lanka occupies a very geostrategically important location, and 
of course, that location and its importance has not been lost 
on others.
    As I have seen in the research I have been doing prior to 
this hearing, the Government of Sri Lanka has walked into these 
deals. In response to that article, it further went on to 
discuss the corrupt practices that were engaged in to try and 
influence that 2015 election.
    Senator Kaine. Chinese to the losing candidate, the 
candidate that they had been able to negotiate and get 
everything they wanted from.
    Ambassador Teplitz. Indeed. And that has caught the 
attention of the Sri Lankan public.
    And I think we must be clear-eyed about China's practices, 
and we must be frank and open with our partners about the 
dangers of those practices. We have to have no illusions that 
this is not a transparent or accountable offering that China is 
making.
    And if confirmed, there are four areas that I would like to 
try and address to engage and strengthen our partnership with 
Sri Lanka.
    The first is looking at economic and commercial ties that 
can provide a much more viable and economically realistic 
alternative to some of the projects that you mentioned from 
that article. Sri Lanka, as the chairman noted, provides to the 
United States, its largest export destination. We can also look 
at imports to Sri Lanka, other opportunities for investment.
    Secondly, I think that we need to increase the number of 
professional and people-to-people exchanges in order to shape 
and influence the environment and the understanding about some 
of the practices that are out there that are not beneficial to 
Sri Lanka's sovereignty in the long run.
    Thirdly, I think we also need to be quite clear about the 
quality of the assistance that we deliver, and that is 
transparent, accountable assistance that is done in concert 
with our partner, Sri Lanka, and that is delivering genuine 
value to the people at the conclusion of the projects. There is 
a Millennium Challenge Corporation compact that is being worked 
through currently, not yet signed. This would be a prime 
example of a project that will meet very specific needs for the 
people of Sri Lanka and will deliver value on into the future.
    Lastly, I think we do have likeminded partners to address 
some of these practices that are of great concern, and we 
should be working with them. India, Australia, the United 
Kingdom, many others are equally concerned about these 
influences, and we need to be working with them to come up with 
a concerted alternative.
    Senator Kaine. I am on the Armed Services committee as 
well. What is the current state of U.S.-Sri Lankan military 
exercises and cooperation?
    Ambassador Teplitz. Senator, that is a good question. We 
have been slowly renewing our relationship on a mil-to-mil 
level. As you know, in the aftermath of the 30-year conflict in 
Sri Lanka, we have been very concerned about gross violations 
of human rights and progress made to address those atrocities. 
So our engagement has grown very gradually in proportion to 
progress on reforms in this area. And the overall scope remains 
modest, but we have engaged in military exchange. We have some 
limited engagement with discrete, carefully vetted units and 
individuals around maritime security. And we hope to build on 
those areas, again commensurate with progress and the limits 
established by Congress to strengthen that military 
relationship in order to address broader issues of national 
security in the region around maritime domain awareness and 
transnational crime.
    Senator Kaine. And my last question for the panel--and I 
thank my chairman for indulging me by letting me go over, which 
he always does, and I always go over. [Laughter.]
    Senator Kaine. Talk about the reconciliation prospects 
between the Tamil and the Sinhalese communities in the 
aftermath of this long civil strife.
    Ambassador Teplitz. There remain significant differences. 
The Tamil community is very concerned about progress made 
toward reconciliation, accountability, justice, and 
specifically commitments made by the current government to the 
international community in that regard. The Government has 
established an office of missing persons. It has just gazetted, 
in fact last night our time, a bill on an office of 
reparations. And we hope that this progress is going to 
continue apace. However, I do not think that is fully 
satisfactory to a community that is looking for constitutional 
reform and some political solutions to this, in addition to the 
efforts to address the past.
    If I am confirmed, I am committed to helping the Government 
to achieve their commitments to the people of Sri Lanka but 
also to helping address openly, transparently the hard issues 
in the room, which are the inter-ethnic and inter-religious 
strife. I think there are many ways to go about that. We have 
had some programs and we can build on that foundation, but open 
dialogue about tough issues, talking about the values of 
democracy and how people can use democratic institutions to 
engage--I think these are some of the things that we can 
continue to use to help smooth that over.
    Senator Kaine. Thanks to each of you. I look forward to 
supporting all of your nominations.
    Thanks, Mr. Chair.
    Senator Risch. Thank you.
    Let me close up with a couple of questions here. Mr. Berry, 
we have all observed over the last 24 years the political 
instability in Nepal. Some people I have read believe that that 
is changing or on the cusp of changing. What is your view on 
that?
    Mr. Berry. Thank you, Senator.
    I believe there is an opportunity. There is a potential 
change here that could be significant. I think one of the 
aspects of Nepali political history, as you have noted, is that 
the succession of governments have left very little room for 
governance to actually occur, that with the new constitutional 
arrangement and the swearing in of the new government under 
Prime Minister Oli, that we now have a 2-year period where 
challenges to the Government's stability are much less likely. 
So I am quite hopeful and I think that there is an opportunity 
here to present in a consistent way U.S. views and to help 
Nepal make some progress towards some key goals and key 
commitments that this government has stated as priorities.
    Senator Risch. I appreciate that.
    Ms. Teplitz, you covered a number of areas with Senator 
Kaine that I was going to ask about. I think those of us who 
watched what happened with the port are just stunned by this, 
and it is really a good poster child for the world to recognize 
what China is doing. Their initiative in that regard--it was so 
obvious and so striking that countries who were tempted by the 
dollar or by the Chinese investment of currency really need to 
take a look at that and see what they are facing and what the 
consequences can be. And being as close to this as you are, I 
hope you will continue to repeat that story regularly so that 
countries that are sorely tempted will have a realization of 
that. So thank you for that.
    The ethnic strife in Sri Lanka is just stunning. I mean, it 
is about as obvious as anywhere in the world and really acts as 
a story for humanity about conflict between ethnicities. And I 
appreciated your comments in that regard.
    Are you optimistic that they are going to get through this? 
When I talk to either side, it is stunning to me how far apart 
they are. Yet, they occupy the same ground and have for so 
long. Your thoughts.
    Ambassador Teplitz. Mr. Chairman, not having had the 
benefit of being on the ground, I am sure I will be more fully 
informed, if confirmed, and then present at post.
    But I would say at this point that there is room for some 
optimism. There is dialogue the Tamil opposition has supported 
the current government on its reform agenda, and there is 
always opportunity there. I think, though, much does remain to 
be done, and this clearly extends from the political levels all 
the way down to the grassroots levels and involves very 
complicated issues such as the return of land seized during the 
conflict era, restoration of livelihoods and economic growth 
that even is across the island, a host of issues that can 
contribute to mending that strife. That is a big lift for any 
government to attempt, including the current government. I 
suspect that progress will continue to be uneven and probably 
be much slower than anybody would like, but I do not think that 
we should give up hope that that can be achieved.
    Senator Risch. I appreciate that.
    Finally, you know, the Maldives--we here are always 
concerned about foreign fighters traveling to other countries 
for terrorism. And as we all know, the Maldives has been a 
contributor to that problem substantially, and we are 
disheartened by the Government being less than enthusiastic 
about doing something about this. What are your thoughts in 
that regard and what kind of message are you going to carry?
    Ambassador Teplitz. Senator, thanks for that question.
    I think counterterrorism is one area where we do have some 
overlapping interests with the Government of the Maldives, and 
clearly more could be done to address very specifically the 
issue of foreign return fighters, reintegration programs, 
better tracking of these individuals, again a host of options 
there. That is something that, if confirmed, I am absolutely 
going to prioritize in our relationship with the Maldives 
looking for ways to find that mutual interest.
    However, we, I think, have to continue to be clear about 
the disrespect for the democratic process and institutions that 
the current government has shown. And perhaps that overlapping 
mutual interest can lead to other beneficial aspects of a 
partnership. But certainly we have that CT area to focus on.
    Senator Risch. Thank you so much.
    Senator Kaine, anything else for the good of the order?
    Well, again, on behalf of Senator Kaine and myself, I thank 
all of you and your families for your willingness to do this.
    We are going to keep the record open until 5 o'clock 
tomorrow night in case some of our colleagues have some deep, 
probing, and difficult questions for you. I think you will be 
able to get through them, however.
    So thank you, all of you, for your participation.
    And the hearing is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
                  Donald Lu by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My experience working on human rights and democracy began 
in 1995 at the U.S. Embassy in Tbilisi, Georgia where I served as the 
human rights and refugee officer. In that capacity, I traveled to the 
separatist controlled Gali District of Abkhazia, where I was able to 
document torture centers used by Russian-supported separatists to 
commit human rights abuses against returning ethnic Georgian refugees. 
I also drafted the human rights report for Georgia in 1995. While 
serving as Ambassador to Albania, I worked with our Ambassador to the 
U.N. Human Rights Council to visit the Roma community in Albania to 
highlight their lack of safe housing. As a result, the city of Tirana 
built 60 new homes for this community. Finally, also in Albania, I led 
our team's work to support the strengthening of democratic institutions 
through our advocacy for a sweeping judicial reform to root out corrupt 
and incompetent judges and prosecutors.

    Question 2.  What issues are the most pressing challenges to 
democracy or democratic development in Kyrgyzstan? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The United States is committed to supporting the Kyrgyz 
Republic's continued democratic development. While the Kyrgyz Republic 
has held six peaceful and orderly national elections since the 2010 
revolution, both the Organization for Security and Cooperation in 
Europe (OSCE) and local civil society election monitors noted that the 
otherwise competitive and well-administered presidential elections in 
2017 were marred by instances of the misuse of public resources in 
election campaigns and vote buying. We continue to support Kyrgyz 
Government initiatives to improve the electoral legal framework to 
prevent the use of administrative resources in elections and 
effectively deter vote buying. If confirmed, I am committed to further 
strengthening the protection of press freedoms, civil society, and the 
rule of law.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Kyrgyzstan? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The Kyrgyz Republic has a vibrant civil society, whose 
active participation helps reinforce the country's young democracy--and 
it will be important to ensure our support for an independent civil 
society does not falter. In previous elections, the national NGO 
Coalition for Democracy and Civil Society, which the United States has 
supported, has played an exceptional role monitoring the voting 
process. There remain, however, significant challenges in the Kyrgyz 
Republic's ability to manage elections, particularly in combatting the 
tactic of vote buying and the misuse of administrative resources. 
Further, official corruption and a lack of accountability by the 
Government and elected officials serve as obstacles to the 
establishment and consolidation of the Kyrgyz democracy. If confirmed, 
I plan to work closely with members of civil society and the Kyrgyz 
Government to assist the nation in strengthening its democratic 
institutions.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, under my leadership the Embassy will continue 
to use the full-range of available resources to support democracy and 
governance with our partners in the Kyrgyz Republic, including through 
the utilization of the Democracy Commission Small Grants program, 
USAID's Democracy, Human Rights, and Governance funding, and other 
State Department funding sources. Central to these efforts will be 
support to the Kyrgyz Republic's traditionally robust civil society 
along with support for independent media.
    If confirmed, I will continue U.S. Embassy Bishkek's administration 
of the Democracy Commission Small Grants program, USAID, and State 
Department assistance programming in accordance with relevant U.S. laws 
and regulations to support more accountable and inclusive democratic 
institutions that can deliver tangible benefits to all citizens. Rule 
of law and anti-corruption will be prominent themes across all 
programming.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Kyrgyzstan? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to developing and maintaining 
regular contact with civil society leaders, human rights activists, and 
other representatives of non-governmental organizations and Kyrgyz 
civil society. I further commit to advocating for the protection of 
human rights and against anti-democratic legislation that could further 
deteriorate the development of the country's democratic values and 
institutions. By meeting with and publicly supporting local NGOs and 
members of civil society, I plan to support robust cooperation between 
civil society and government, including through assistance programming, 
that creates the basis for effective political parties, elected 
officials, election administrators, non-governmental organizations, 
religious freedom, and a transparent media. Ultimately, these efforts 
aim to reach a mature political dialogue and the de-politicization of 
government operations that contribute to long-term political stability.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meeting regularly with 
democratically oriented political opposition figures and parties and 
advocating for access and inclusivity for women, members of minority 
groups and youth within political parties. I further commit to 
highlighting the importance of genuine political competition in my 
discussions with the Kyrgyz Government, in public appearances, and by 
working with my colleagues in the Department of State and USAID on 
appropriate assistance programs designed to strengthen the Kyrgyz 
Republic's democratic institutions.

    Question 7. Will you and your embassy team actively engage with 
Kyrgyzstan on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Kyrgyzstan?

    Answer. If confirmed, I pledge to actively engage with the 
Government and people of the Kyrgyz Republic on press freedom and to 
strongly address any government efforts designed to control or 
undermine press freedom through legal regulatory or other measures. I 
further commit to meeting regularly with members of the independent, 
local press in the Kyrgyz Republic.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Kyrgyzstan?

    Answer. If confirmed, I am committed to actively engaging with 
civil society and my government counterparts to counter disinformation 
and propaganda disseminated by foreign states or non-state actors in 
the Kyrgyz Republic. I further commit to leading Public Affairs and 
USAID programming to strengthen independent media and to increase 
access to accurate information about the United States in the Kyrgyz 
Republic, countering the impact of state sponsored disinformation.

    Question 9. Will you and your embassy teams actively engage with 
Kyrgyzstan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, my embassy team and I will actively engage 
with the Kyrgyz Republic on the right of labor groups, including for 
independent trade unions, to organize. Ensuring respect for 
internationally recognized workers' rights and high labor standards 
promotes a level playing field for U.S. workers and helps create 
stronger trading partners for the United States. Independent trade 
unions are one of the fundamental building blocks for any democratic 
society and are important partners for the State Department in many 
countries. If confirmed, I will continue to support workers' ability to 
form and join independent trade unions of their choice.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Kyrgyzstan, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Kyrgyzstan? What specifically will you commit to do to help 
LGBTI people in Kyrgyzstan?

    Answer. I pledge to defend the human rights and dignity of all 
people in the Kyrgyz Republic, no matter their sexual orientation or 
gender identity. The LGBTI community in the Kyrgyz Republic is 
particularly vulnerable. LGBTI persons whose sexual orientation or 
gender identity is publicly known risk physical and verbal abuse, 
possible loss of jobs, and unwanted attention from police and other 
authorities. If confirmed, I commit to working with civil society and 
NGO's that address LGBTI issues and to have a frank dialogue with the 
Kyrgyz Government on the obligation of governments to respect the human 
rights for everyone in their countries.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Donald Lu by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My experience working on human rights and democracy began 
in 1995 at the U.S. Embassy in Tbilisi, Georgia where I served as the 
human rights and refugee officer. In that capacity, I traveled to the 
separatist controlled Gali District of Abkhazia, where I was able to 
document torture centers used by Russian-supported separatists to 
commit human rights abuses against returning ethnic Georgian refugees. 
I also drafted the human rights report for Georgia in 1995. While 
serving as Ambassador to Albania, I worked with our Ambassador to the 
U.N. Human Rights Council to visit the Roma community in Albania to 
highlight their lack of safe housing. As a result, the city of Tirana 
built 60 new homes for this community. Finally, also in Albania, I led 
the Embassy team's work to support the strengthening of democratic 
institutions through our advocacy for a sweeping judicial reform to 
root out corrupt and incompetent judges and prosecutors.

    Question 2. What are the most pressing human rights issues in 
Kyrgyzstan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Kyrgyzstan? What do 
you hope to accomplish through these actions?

    Answer. The most significant human rights issues in the Kyrgyz 
Republic include allegations of law enforcement and security services 
officers' use of torture and arbitrary arrest; pressure on independent 
media; harassment of journalists; selective, arbitrary, and politically 
motivated prosecutions; pervasive corruption; forced labor; and 
attacks, threats, and systematic police-driven extortion of members of 
sexual and ethnic minority groups.We remain committed to the Kyrgyz 
Republic's success as a democratic, prosperous, and stable country. Our 
continued support for human rights in the Kyrgyz Republic is an 
essential part of promoting regional peace and stability.If confirmed, 
I will engage in a frank and open discussion with the Kyrgyz Government 
on the importance of political diversity and urge the Government to 
protect the space for civil society, independent media, and human 
rights for all individuals. In any democracy, it is fundamental that 
legal proceedings be transparent, fair, and provide appropriate 
procedural and substantive protections and guarantees for the accused.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kyrgyzstan in 
advancing human rights, civil society and democracy in general?

    Answer. While the existing legislation established to protect the 
rights of all individuals in the Kyrgyz Republic is significant, 
especially in comparison to neighboring states, the rule of law in the 
Kyrgyz Republic remains weak and corruption undermines judicial 
independence. If confirmed, I will ensure our programming redoubles its 
focus on rule of law, judicial independence and transparency. On the 
issue of torture, I will lead the Embassy's efforts to eliminate 
unlawful detention and torture in the law enforcement sector through 
legal education, training programs, and exchanges, in compliance with 
international obligations against torture.
    While the Kyrgyz Republic enjoys greater press freedom than its 
Central Asian neighbors, I will continue encouraging the protection of 
press freedom and, if confirmed, will aim to further strengthen the 
development of the country's media outlets including through our 
assistance programming.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kyrgyzstan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. The Kyrgyz Republic has a vibrant civil society, whose 
active participation helps reinforce the country's young democracy. If 
confirmed, I commit to developing and maintaining regular contact with 
civil society leaders, human rights activists, and other 
representatives of non-governmental organizations and Kyrgyz civil 
society, as well as with interested U.S. NGOs. I further commit to 
advocating for the protection of human rights and against anti-
democratic legislation that could thwart the development of the 
country's democratic values and institutions. All recipients of U.S. 
security assistance undergo Leahy vetting and, if confirmed, I will 
ensure that all provisions of U.S. security assistance and security 
cooperation activities continue to reinforce the importance of human 
rights.

    Question 5. Will you and your embassy team actively engage with 
Kyrgyzstan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Kyrgyzstan?

    Answer. If confirmed, I will reiterate the importance of political 
plurality and urge the Kyrgyz Government to uphold the constitutionally 
protected freedoms of all peaceful political actors, including the 
freedoms of those who oppose the Government. If the Kyrgyz Government 
unjustly targets individuals, the Embassy would actively engage with 
Kyrgyz officials consistent with traditional American objectives of 
supporting justice, fair legal process, the rule of law, and 
representative democracy in the Kyrgyz Republic.

    Question 6. Will you engage with Kyrgyzstan on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. The Kyrgyz Republic has long been a leader in developing 
democratic institutions in Central Asia, and any measures that limit 
this progress cast a shadow on that reputation.
    If confirmed, I will seek out every opportunity to engage with the 
Kyrgyz Government on human rights, including civil rights, and 
governance in order to strengthen civil society and solidify its 
democratic institutions.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Kyrgyzstan?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence in the Kyrgyz 
Republic. The diversified mutual funds are exempt from the conflict of 
interest laws. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest and I will remain vigilant with 
regard to my ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will make a priority of encouraging the 
recruitment and professional development of a diverse staff that 
represents the face of America. Specific steps include reaching out to 
excellent colleagues from diverse backgrounds to invite them to apply 
for jobs and expanding our mentoring program for junior officers to 
include entry-level specialists and eligible family member employees.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will communicate to our senior staff from 
the start that I will have zero tolerance for discrimination and sexual 
harassment. In addition, ahead of our annual personnel selection 
season, I will communicate my expectation that we invite applications 
from the broadest possible slate of qualified candidates to ensure that 
we build a diverse and inclusive community. Finally, I will ask our 
supervisors to reinforce these principles with their American and 
Kyrgyz staff to ensure we set appropriate expectations.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Randy W. Berry by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The promotion and protection of human rights and democracy 
has been a core element of my 25-year career as a Foreign Service 
Officer. As a human rights officer at the U.S. Embassy in Kampala, 
Uganda, I drafted the State Department's annual report on human rights 
challenges in that country and pressed the Government for greater 
accountability. As the Regional Refugee Officer for the African Great 
Lakes region, I worked with governments, international organizations, 
and non-governmental organizations to secure protection of human rights 
and subsistence for hundreds of thousands of refugees.
    As Deputy Chief of Mission in Kathmandu, Nepal, I engaged with a 
broad range of contacts to focus on human rights violations during the 
1996-2006 civil conflict there. As Special Envoy for the Human Rights 
of LGBTI Persons, I travelled to more than 50 countries worldwide to 
share best practices, build coalitions, and engage in constructive 
discussion in order to end violence and extreme discrimination against 
persons based on their identity. And finally, as Deputy Assistant 
Secretary of State for Democracy, Human Rights and Labor, I led teams 
responsible for our advocacy and protection of human rights and 
fundamental freedoms across the African continent and South/Central 
Asia. Most recently, in that capacity, I worked closely with leaders in 
the U.S. Government and the Government of Uzbekistan to realize 
substantial progress on civil society space and human rights and 
fundamental freedoms in that country's journey to reform.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Nepal? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The key challenge to democratic development in Nepal is the 
historical absence of a politically stable environment in which 
democratic institutions could grow and flourish. The marginalization of 
women and members of certain caste and ethnic groups has traditionally 
excluded them from the political process. The prevalence of corruption 
and impunity has also presented a challenge to clean governance and 
effective rule of law as has the slow pace of implementing a credible 
transitional justice process to address conflict-era abuses. The new 
government offers opportunities to make progress on these fronts.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Nepal? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will support a stable, democratic, and 
sovereign Nepal. I will advocate for political and social inclusion of 
Nepalis of all backgrounds. I will support assistance programming for, 
and robust engagement with, Nepali civil society. Overcoming its 
history of political instability will not be easy, but by helping Nepal 
to do so, we will advance a shared interest in stronger bilateral ties, 
improved conditions for sustained economic growth and development, and 
a secure and sovereign Nepal.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will endeavor to maximize the impact of 
assistance resources to support democracy and good governance in Nepal 
by focusing on efforts to combat corruption, counter trafficking in 
persons, and increase the capacity of government to serve the Nepali 
people. I will take a whole of mission approach and strive to ensure 
that assistance programming targets U.S. and mission objectives, 
maximizes efficiencies, and contributes to long-term and sustainable 
change that results in a more capable and self-reliant Nepal.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Nepal? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will continue to strengthen the Embassy's 
strong and productive relationships with Nepal's human rights 
activists, non-governmental organizations, and other members of civil 
society. I will press the Government of Nepal to allow NGOs to function 
without hindrance and to permit civil society activity to flourish.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will actively seek opportunities to engage 
representative from the political opposition and to advocate a healthy 
exchange of views among representatives of different parts of the 
political spectrum. I will publicly and vocally support including all 
Nepalis in the political process, particularly women, members of 
minority groups, and young people.

    Question 7. Will you and your embassy team actively engage with 
Nepal on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Nepal?

    Answer. If confirmed, I will champion freedom of expression, 
including for the media, in Nepal and oppose efforts to control or 
otherwise undermine it. I will further commit to meeting with press 
representatives, including representatives of the independent local 
press.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Nepal?

    Answer. If confirmed, I will join the Embassy team to pursue all 
appropriate measures to counter disinformation and propaganda from all 
foreign state and non-state actors in Nepal.

    Question 9. Will you and your embassy teams actively engage with 
Nepal on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will direct the Embassy team to engage 
Nepali interlocutors on labor issues, including the right of workers to 
organize and form independent trade unions.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Nepal, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Nepal? What specifically will you commit to do to help LGBTI 
people in Nepal?

    Answer. If confirmed, I will defend the human rights and dignity of 
all individuals in Nepal, regardless of sexual orientation and gender 
identity. I will support efforts to protect the rights of LGBTI people 
in Nepal, who continue to face discrimination.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Randy W. Berry by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The promotion and protection of human rights and democracy 
has been a core element of my 25-year career as a Foreign Service 
Officer. As a human rights officer at the U.S. Embassy in Kampala, 
Uganda, I drafted the State Department's annual report on human rights 
challenges in that country and pressed the Government for greater 
accountability. As the Regional Refugee Officer for the African Great 
Lakes region, I worked with governments, international organizations, 
and non-governmental organizations to secure protection of human rights 
and subsistence for hundreds of thousands of refugees.
    As Deputy Chief of Mission in Kathmandu, Nepal, I engaged with a 
broad range of contacts to focus on human rights violations during the 
1996-2006 civil conflict there. As Special Envoy for the Human Rights 
of LGBTI Persons, I travelled to more than 50 countries worldwide to 
share best practices, build coalitions, and engage in constructive 
discussion in order to end violence and extreme discrimination against 
persons based on their identity. And finally, as Deputy Assistant 
Secretary of State for Democracy, Human Rights and Labor, I led teams 
responsible for our advocacy and protection of human rights and 
fundamental freedoms across the African continent and South and Central 
Asia. Most recently, in that capacity, I worked closely with leaders in 
the U.S. Government and the Government of Uzbekistan to realize 
substantial progress on civil society space and human rights and 
fundamental freedoms in that country's journey to reform.

    Question 2. What are the most pressing human rights issues in 
Nepal? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Nepal? What do you 
hope to accomplish through these actions?

    Answer. Key human rights issues in Nepal include the protection of 
religious freedom, empowerment of women in all sectors of society, 
understanding and carefully considering how Nepal's unique and complex 
social structure marginalizes members of certain caste and ethnic 
groups, progress on addressing conflict-era abuses, and promotion of 
transparent and effective governance at all levels. If confirmed, I 
intend to incorporate messages in all of these areas in my engagements 
with the Nepali Government.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Nepal in advancing 
human rights, civil society and democracy in general?

    Answer. There are countless obstacles to promoting human rights, 
including the potential lack of political will, general political 
instability as a result of turnover of officials, and recent concerning 
trends around the space for civil society to function freely and 
effectively to advance human rights. However, in the wake of last 
year's elections, Nepal is now poised for several years of political 
stability, and I believe there is a commitment to protecting and 
advancing human rights. Nepal's civil society also is robust and 
active, and if confirmed, I will work with its representatives 
regularly to strengthen the role of civil society.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Nepal? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will continue to strengthen the Embassy's 
strong and productive relationships with Nepal's human rights, civil 
society, and non-governmental organizations. In addition, I will 
maintain strong relationships with the Government and military to 
ensure we appropriately apply Leahy Law requirements while advancing 
the full spectrum of our bilateral security assistance interests.

    Question 5. Will you and your embassy team actively engage with 
Nepal to address cases of key political prisoners or persons otherwise 
unjustly targeted by Nepal?

    Answer. If confirmed, I will work tirelessly to ensure the Nepali 
Government respects human rights and fundamental freedoms, including 
providing substantive protection in its criminal procedures.

    Question 6. Will you engage with Nepal on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, human rights and governance will be 
cornerstones of the Embassy's engagement with the Nepali Government and 
Nepalis across all sectors of society. Inclusive governance will be a 
particular focus of my efforts as it represents one of the keys to 
advancing economic growth and solidifying development gains in Nepal.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Nepal?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence in Nepal. The 
diversified mutual funds are exempt from the conflict of interest laws. 
I am committed to ensuring that my official actions will not give rise 
to a conflict of interest and I will remain vigilant with regard to my 
ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I firmly believe that as Americans, our greatest strength 
draws from our ability to value and promote diversity in our ranks. 
Most importantly, if confirmed, I will lead our Mission in Kathmandu on 
inclusive management by communicating expectations and modeling 
inclusive practices in hiring, promotion, and skills and professional 
development of staff. For many years I have actively mentored rising 
Foreign Service personnel with a special focus on those coming from 
underrepresented groups and backgrounds, and if confirmed I would 
intend to do the same.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Most importantly, I will lead by example, and also 
communicate expectations of inclusive management and leadership among 
American and Nepali staff. As a manager with a reputation for 
collaborative leadership and responsibility, I will work with our 
entire team in Kathmandu, and those offices in the Department of State, 
to ensure our teams have access to the most recent and useful 
information on resources available to boost awareness, training, and 
other tools intended to ensure that opportunity is equally available to 
all.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Alaina Teplitz by Senator Robert Menendez

    Question 1. Do you commit to regularly engaging with the Sri Lankan 
Government and military and explaining the conditionality requirements 
laid out in U.S. appropriations law with respect to the provision of 
U.S. security assistance to Sri Lanka?

    Answer. If confirmed, I will meet regularly with representatives of 
the Sri Lankan Government and military. I will explain all requirements 
in U.S. appropriations law for provision of security and other 
assistance to Sri Lanka and urge the Government to take steps to comply 
with all of these conditions.

    Question 2. If confirmed, how will you promote the establishment of 
credible justice and accountability mechanisms, in line with past UNHRC 
resolutions, in Sri Lanka? What specific tools will you leverage?

    Answer. If confirmed, I will stress the importance of Sri Lanka's 
obligations to fulfill the commitments articulated and reaffirmed in 
the U.N. Human Rights Council resolutions it co-sponsored in 2015 and 
2017 to implement reconciliation and accountability mechanisms that 
contribute to a peaceful and prosperous future for all of Sri Lanka's 
people. I will underscore U.S. interest in providing assistance and 
building capacity that assists Sri Lanka in following through on its 
obligations. I will encourage dialogue with all stakeholders that 
fosters progress on difficult issues. I will press the Government to 
build on the steps that it has taken thus far, such as the 
establishment of the Office of Missing Persons, and to accelerate its 
efforts toward the establishment of a reparations office, truth seeking 
commission and a meaningful transitional justice process, including a 
judicial mechanism that includes international participation. I will 
stress that expansion of relations with the United States will be 
possible as Sri Lanka fulfills its commitments.

    Question 3. How will you address ongoing reports of torture, sexual 
violence, and other abuses by Sri Lankan security forces, particularly 
in former conflict zones?

    Answer. If confirmed, I will amplify U.S. condemnation of torture, 
sexual violence, and human rights violations and abuses wherever they 
occur. I will press the Sri Lankan Government to fully investigate all 
credible allegations of human rights violations and abuses and to hold 
those responsible to account. I will support the important role of 
independent investigative bodies within Sri Lanka, notably the Human 
Rights Commission of Sri Lanka, in monitoring and investigating all 
such allegations. I will explore ways in which U.S. assistance for 
these institutions can further build their capacity and technical 
capabilities.

    Question 4. How will you work with the Government of Sri Lanka and 
Sri Lankan civil society to ensure that offices set up to address 
missing persons, reparations and other transitional justice issues are 
functioning effectively to adequately serve conflict victims? Will you 
urge the Sri Lankan Government to publish a list of missing persons 
disappeared by security forces during the conflict?

    Answer. If confirmed, I will urge the Sri Lankan Government to 
accelerate its efforts to enact and implement legislation establishing 
an office of reparations, advance legislation creating a truth 
commission, and initiate action to put in place a judicial mechanism to 
investigate and pursue prosecution, where appropriate, of alleged 
abuses and crimes. I also will urge government consultation with all 
stakeholders. In my engagements with Sri Lankan leadership, I will make 
clear that we expect the Government to live up to its obligations and 
commitments to its people and their future. I will highlight that Sri 
Lanka's progress on these commitments will make further growth in our 
bilateral relationship possible.
    I will also take the opportunity to meet with victims and families 
of missing persons to emphasize the importance of their concerns, and 
genuinely understand the answers and solutions they seek.
    Since their appointment in February 2018, I understand that the 
commissioners of the Office of Missing Persons have begun meeting with 
families of missing individuals. The Government has confirmed its 
readiness to share data with the Office of Missing Persons, including 
that collected during previous efforts to catalogue missing persons and 
through excavations and research by the International committee of the 
Red Cross. The Ministry of Foreign Affairs has called publicly for 
anyone with information on missing persons or lists thereof to provide 
details to the Office of Missing Persons. If confirmed, I will press 
the Government, including the military, to continue these efforts 
toward providing answers to families of missing persons. I will welcome 
the publication of information gleaned from any lists that may exist in 
order to advance these goals, provided adequate measures to protect the 
privacy of individuals on such lists are in place.

    Question 5. How will you urge an end to the use of laws to detain 
alleged terrorism suspects that do not comply with international 
standards, and ensure that any replacement legislation meets such 
standards?

    Answer. Sri Lanka's cabinet has approved draft legislation to 
replace the Prevention of Terrorism Act. The legislation is currently 
with the Sri Lankan attorney general for legal certification. If 
confirmed, I will press the Sri Lankan leadership to follow through 
with the country's commitment to repeal and replace the Prevention of 
Terrorism Act without further delay. I will stress the need for the 
replacement legislation to conform to Sri Lanka's international 
obligations and commitments and offer to facilitate consultations with 
U.S. and international legal experts as needed.

    Question 6. If confirmed, how specifically will you urge Sri Lanka 
to undertake credible military reforms, namely to reduce its size 
overall and presence in former conflict zones, improve professionalism, 
and reduce involvement in commercial activity? How will the U.S. 
Government incentivize such reforms?

    Answer. I understand that the number of Sri Lankan military 
personnel in former conflict zones is currently at 60 percent of the 
wartime deployment level in those regions. Nationwide, the military is 
working to right-size its forces, and is making significant progress 
toward this goal. If confirmed, I will urge the Sri Lankan Government 
to move ahead with these plans and maintain the current downward 
trajectory in military presence. I will remind the military that 
progress on accountability will make growth in bilateral cooperation 
possible. I also will support bilateral military-to-military engagement 
that provides Sri Lankan military officers with opportunities to 
interact with counterparts in the U.S. military and receive 
professional military education in the United States, for example, 
through International Military Education and Training (IMET) 
programming. Such opportunities allow us to promote U.S. priorities and 
values and provide a model for principles such as respect for human 
rights and civilian control of the military. I will also insist on full 
and appropriate application of Leahy Law requirements to ensure that 
our security assistance and cooperation is consistent with human rights 
priorities. As part of broader engagement on economic and commercial 
issues, I will underscore that military involvement in what would 
customarily be considered civilian commercial activity only hinders 
private sector growth that Sri Lanka needs for its economic prospects 
to improve.

    Question 7. How will you engage Sri Lankan military and government 
counterparts to return military-occupied land in former conflict zones 
to its rightful owners, or compensate them accordingly?

    Answer. Since 2009, the Government of Sri Lanka has released 
approximately 65,000 acres of the 84,000 acres occupied at the end of 
the war in the country's Northern and Eastern Provinces, or about 77 
percent. The current government has returned more than 6,000 acres 
since it came into office in 2015, as well as removed all of the 
wartime checkpoints and reopened key routes, such as the road 
traversing the Palaly High Security Zone. If confirmed, I will press 
the Government and the military to accelerate efforts to return land, 
or compensate the rightful owners, so that people in these areas can 
rebuild their lives. I also will support U.S. assistance for Sri 
Lanka's demining efforts as these help make land available for 
resettlement.

    Question 8. How specifically will you work with government and 
civil society to promote anti-corruption and transparency efforts in 
Sri Lanka?

    Answer. To tackle corruption, the Sri Lankan Government has 
established bodies that conduct independent investigation of 
allegations of malfeasance, work to recover misappropriated state 
assets, investigate financial crimes, and promote transparency. 
Parliament has approved the establishment of special courts for bribery 
and corruption cases. These efforts started slowly, but are beginning 
to show promise. If confirmed, I will encourage the Government to move 
quickly on prosecuting financial crimes, and I will work to continue 
expanded U.S. technical assistance in this important area. I will also 
leverage public diplomacy resources to engage in public dialogue about 
the benefits of a transparent and accountable government.

    Question 9. How will you engage to counter sectarian violence and 
violent extremist attacks on minorities and other vulnerable 
communities?

    Answer. If confirmed, I will call on Sri Lankan leaders to swiftly 
and unequivocally condemn and investigate violence and incitement to 
violence based on religion or ethnicity, and to hold all those 
responsible accountable. I will regularly engage government and civil 
society leaders to promote religious freedom, tolerance, and pluralism. 
I will explore ways to build the capacity of local authorities so they 
can address incidents of violence and discrimination more effectively.

    Question 10. What will your approach be to issues of 
decentralization and constitutional reform, and what priority will 
these issues take in your overall work?

    Answer. There is broad agreement on the outlines of constitutional 
reform, as laid out in the Sri Lankan constitutional assembly steering 
committee's interim report released in September 2017. The 
parliamentary debate on the subject that followed in November 2017 also 
was welcome. I understand drafting of the text of the constitution, 
based on the interim report and the parliamentary debate, is underway. 
If confirmed, I will encourage the Government to move forward with this 
process as a high priority for Sri Lanka's future and emphasize the 
need for an effective communication strategy for the reform effort.

    Question 11. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Human rights and democratic principles are core American 
values. Throughout my career, I have engaged in tough conversations 
with foreign leaders on the topics of human rights, transitional 
justice, and freedom of expression, religion, and peaceful assembly in 
an effort to promote these rights where they are being abridged. In 
addition, I have shown my commitment to these values through social 
media postings, in speeches, in op-eds, and in leading Embassy 
activities. For example, I have pressed the Government of Nepal to 
establish a credible transitional justice process, to respect media 
freedoms and the role of an unfettered civil society, and to ensure 
women and members of marginalized ethnic groups receive fair and equal 
treatment. If confirmed, I will add to this track record of promoting 
human rights through continuous advocacy in Sri Lanka and Maldives.

    Question 12. What issues are the most pressing challenges to 
democracy or democratic development in Sri Lanka? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. In Sri Lanka, the most significant human rights issues 
include unlawful killings; torture; sexual abuse; arbitrary arrest; 
unreasonably prolonged detention; lack of property restitution by the 
military; and surveillance and harassment of civil society activists 
and journalists, discrimination and violence against religious 
minorities, and impunity for crimes committed during the country's 
civil war. The Sri Lankan Government has committed to a reform agenda 
to address challenges to democratic development. The agenda includes 
elements of good governance, anti-corruption, judicial reform, and 
constitutional revision. The Government also has relaxed constraints on 
freedom of expression, association, and peaceful assembly. If 
confirmed, I will press the Sri Lankan Government to fully implement 
its commitments to good governance and advocate freedom of expression, 
including by the media.

    Question 13. What steps will you take--if confirmed--to support 
democracy in Sri Lanka? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will support efforts to protect freedom of 
expression and citizens' rights to participate in government and the 
conduct of public affairs and to encourage the Sri Lankan Government to 
make good on its commitments to tackle corruption, promote good 
governance, uphold human rights, and conclude the constitutional reform 
process. Progress in these areas will help to sustain and expand the 
advances Sri Lanka has made on governance and representative democracy. 
It is important that the United States help Sri Lanka address these 
challenges now while a reform-minded government remains in power.

    Question 14. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will strive to ensure that assistance 
programming directly supports mission objectives, maximizes 
efficiencies, and contributes to long-term and sustainable progress in 
the advancement of U.S. interests. In Sri Lanka, I will endeavor to 
maximize the impact of assistance resources to support democracy and 
good governance by ensuring tight coordination of, and collaboration 
among, U.S. Government agencies engaged there and focusing on 
countering corruption, strengthening democratic institutions and 
justice processes, and improving transparency and accountability in 
public financial management and the business climate. In Maldives, I 
will support utilization of U.S. assistance to advance engagement in 
areas of mutual interest.

    Question 15. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Sri Lanka? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will seek out opportunities to meet with 
representatives of human rights organizations, civil society, and non-
governmental organizations in the United States and Sri Lanka. I will 
press the Governments of Sri Lanka to allow NGOs to function without 
hindrance and to permit civil society activity to flourish.

    Question 16. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I will engage with members of the political 
opposition and advocate a healthy exchange of views among 
representatives of different parts of the political spectrum. I will 
speak out against politically motivated repression against opposition 
figures and parties. I will publicly and vocally support inclusivity, 
particularly of women, members of minority groups, and young people.

    Question 17. Will you and your embassy team actively engage with 
Sri Lanka on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Sri Lanka?

    Answer. If confirmed, I will champion freedom of expression, 
including for the media, in Sri Lanka and oppose efforts to control or 
otherwise undermine it. I will further commit to meeting with press 
representatives, including members of the local press.

    Question 18. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in Sri 
Lanka?

    Answer. If confirmed, I will lead the Embassy team in working to 
counter disinformation and propaganda from all foreign state and non-
state actors in Sri Lanka and Maldives.

    Question 19. Will you and your embassy teams actively engage with 
Sri Lanka on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will direct the Embassy team to engage Sri 
Lanka interlocutors on labor issues, including the right of workers to 
organize and form independent trade unions.

    Question 20. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Sri Lanka, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Sri Lanka? What specifically will you commit to do to help 
LGBTI people in Sri Lanka?

    Answer. I will defend the human rights and dignity of all people in 
Sri Lanka, regardless of sexual orientation and gender identity. Sri 
Lankan anti-discrimination laws do not prohibit discrimination based on 
sexual orientation and gender identity. I will support efforts to 
protect the rights of LGBTI individuals, who face both discrimination 
and criminal penalties.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Alaina Teplitz by Senator Benjamin L. Cardin

    Question 1. Sri Lanka has so far made limited progress on key 
commitments required to further reconciliation efforts, particularly 
between the Tamil and the Sinhala communities. However, impunity for 
war crimes and crimes against humanity remains unaddressed. As 
ambassador, how do you intend to ensure that the Government is aware 
that this remains a priority for U.S. engagement with Sri Lanka?

    Answer. If confirmed, I will press Sri Lanka to fully implement its 
commitments to reconciliation, justice, and accountability. I will urge 
the Government to establish a truth commission, reparations office, and 
a judicial mechanism to investigate and pursue prosecution, where 
appropriate, of alleged abuses and violations as well as crimes. In my 
engagements with Sri Lankan leadership, I will make it clear that we 
expect the Government to live up to its obligations to its people and 
their future. I will highlight that Sri Lanka's progress on these 
issues will make further growth in bilateral relations possible. I will 
support assistance programming that helps the Sri Lankan Government and 
civil society move toward reconciliation and non-recurrence of 
conflict.

    Question 2. If confirmed, what specific actions will you take to 
convince the Government of Sri Lanka to deliver on the commitments made 
to the international community on: Establishing a judicial mechanism 
(in line with its commitments to the U.N. Human Rights Council) that 
includes international participation in a meaningful transitional 
justice process? Establishing a Truth, Justice, Reconciliation and Non-
Recurrence Commission? Supporting the Office on Missing Persons to 
continue their work efficiently and independently?

    Answer. If confirmed, I will stress the importance of Sri Lanka's 
obligations to fulfill the commitments articulated and reaffirmed in 
the U.N. Human Rights Council resolutions it co-sponsored in 2015 and 
2017 to implement reconciliation and accountability mechanisms that 
contribute to a peaceful and prosperous future for all of Sri Lanka's 
people. I will underscore U.S. interest in providing assistance and 
building capacity that enables Sri Lanka to follow through on its 
obligations and commitments. I will encourage dialogue that fosters 
progress on difficult but necessary issues. I will press the Government 
to build on the steps that it has taken thus far, such as the 
establishment of the Office of Missing Persons, and to accelerate its 
efforts toward the establishment of a truth commission and a meaningful 
transitional justice process, including a judicial mechanism with 
international participation. I will stress that further expansion of 
relations with the United States will be possible if Sri Lanka fulfills 
its commitments.

    Question 3. Last year, President Sirisena promised the families of 
those disappeared during Sri Lanka's civil war that the lists of 
detainees being held by the Government would be published, so that 
family members of those who surrendered at the end of the war and then 
``disappeared'' could learn whether their loved ones are in custody. 
The Senate's FY 2018 appropriations bill also include report language 
conditioning assistance to Sri Lanka partially on the publication of 
the lists. However, the lists have still not been made public. If 
confirmed, will you make a public list of detainees a priority for U.S. 
engagement? Some of the families have been protesting and demanding 
justice for the disappeared and have been continuously doing so since 
February 2017. Will you meet with those families of the disappeared and 
confirm to them that the United States plans to make their concerns a 
priority?

    Answer. The families of those who have disappeared deserve answers 
about the fates of their missing loved ones. Moreover, a thorough 
accounting for past disappearances, especially during the last phases 
of the civil war, is critical to ensuring non-recurrence of ethnic 
violence. For this reason, implementation of Sri Lanka's commitments to 
accountability and a credible transitional justice process is extremely 
important. If confirmed, I will press the Government to fulfill these 
commitments. I also will seek opportunities to meet with the families 
of missing persons and confirm to them the importance with which we 
view their concerns.
    Since their appointment in February 2018, I understand that the 
commissioners of the Office of Missing Persons have begun meeting with 
families of the missing. The Government has confirmed its readiness to 
share data with the Office of Missing Persons, including data collected 
during previous efforts to catalogue missing persons and through 
excavations and research by the International committee of the Red 
Cross. The Ministry of Foreign Affairs has called publicly for anyone 
with information on missing persons or lists thereof to provide details 
to the Office of Missing Persons. If confirmed, I will press the 
Government, including the military, to continue these efforts toward 
providing answers to the families of missing persons and an accounting 
of the war's final days to the people of Sri Lanka. I will welcome the 
publication of information gleaned from any lists that may exist in 
order to advance these goals, provided adequate measures to protect the 
privacy of individuals on such lists are in place.

    Question 4. Sri Lanka is in the midst of a constitutional reform 
process, announced by the president in October 2017. What do you make 
of the reform process so far? What steps do you believe the Government 
should take to signal to the international community they are serious 
about reforms to include issues like decentralizing authority in the 
Government, anti-corruption measures, and human and civil rights?

    Answer. The Sri Lankan Government has made important strides on its 
reform agenda, but it still has much to do. There is broad agreement on 
the outlines of constitutional reform, as laid out in the 
constitutional assembly steering committee's interim report released in 
September 2017. The parliamentary debate on the subject that followed 
in November 2017 also was welcome. I understand drafting of the text of 
the constitution, based on the interim report and the parliamentary 
debate, is underway, and, if confirmed, I will encourage the Government 
to move forward actively with this process.
    To tackle corruption, the Government has established bodies that 
conduct independent investigation of allegations of malfeasance, work 
to recover misappropriated state assets, investigate financial crimes, 
and promote transparency. Parliament has approved the establishment of 
special courts for bribery and corruption cases. These efforts started 
slowly, but are beginning to show promise. If confirmed, I will 
encourage the Government to move quickly on prosecuting financial 
crimes, and I will work to continue expanded U.S. technical assistance 
in this important area.
    Whether on constitutional reform, anti-corruption, or protection of 
human rights and fundamental freedoms, acceleration of the Sri Lankan 
Government's implementation of its commitments would underscore its 
seriousness. Consultation with all stakeholders remains an important 
component of Sri Lanka's progress. Where the organizational structure 
is in place to take on these challenges, the Government of Sri Lanka 
needs to ensure that these bodies are functioning properly, achieving 
meaningful progress, and producing tangible results.

    Question 5. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Human rights and democratic principles are core American 
values. Throughout my career, I have engaged in tough conversations 
with foreign leaders on the topics of human rights, transitional 
justice, and freedom of expression, religion, and peaceful assembly in 
an effort to promote these rights where they are being abridged. In 
addition, I have shown my commitment to these values through social 
media postings, in speeches, in op-eds, and in leading Embassy 
activities. For example, I have pressed the Government of Nepal to 
establish a credible transitional justice process, to respect media 
freedoms and the role of an unfettered civil society, and to ensure 
women and members of marginalized ethnic groups receive fair and equal 
treatment. If confirmed, I will add to this track record of promoting 
human rights through continuous advocacy in Sri Lanka and Maldives.

    Question 6. What are the most pressing human rights issues in Sri 
Lanka? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Sri Lanka and The 
Maldives? What do you hope to accomplish through these actions?

    Answer. In Sri Lanka, the most significant human rights issues 
include unlawful killings; torture; sexual abuse; arbitrary arrest; 
unreasonably prolonged detention; lack of property restitution by the 
military; surveillance and harassment of civil society activists and 
journalists; discrimination and violence against members of religious 
minorities; and impunity for crimes committed during the country's 
civil war. If confirmed, I will press the Sri Lankan Government to 
fulfill its commitments to good governance, accountability, justice, 
and reconciliation for the sake of a peaceful and prosperous future for 
its people by working with the Government, civil society, victims' 
groups, and other stakeholders.
    The current leadership of Maldives has weakened democratic 
institutions, undermined the independence of the legislature and 
judiciary, had political opponents arrested and imprisoned on specious 
charges, unduly restricted freedom of expression and peaceful assembly, 
and cracked down on dissent. If confirmed, I will press Maldives to 
uphold the rule of law and respect human rights and fundamental 
freedoms. I will support efforts to encourage genuinely free and fair 
elections that reflect the will of Maldivian voters.

    Question 7. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Sri Lanka in 
advancing human rights, civil society and democracy in general?

    Answer. Both Sri Lanka and Maldives have constituencies that 
benefit from the status quo and either portray calls to respect human 
rights as interference in internal affairs contrary to Sri Lankan or 
Maldivian national sovereignty or deny the existence of human rights 
problems altogether. In Sri Lanka, the challenge is to engage in a 
manner that encourages the Government to follow through on its human 
rights commitments and obligations without giving credence to such 
misperceptions. In Maldives, the situation is much more daunting as the 
current leadership shows no inclination to govern in accordance with 
its obligations and commitments on human rights and fundamental 
freedoms or to engage productively with diplomatic partners. Despite 
these challenges, if confirmed I will actively pursue efforts to 
support human rights, civil society, and democracy in Sri Lanka and 
Maldives.

    Question 8. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Sri Lanka and The Maldives? If confirmed, 
what steps will you take to pro-actively support the Leahy Law and 
similar efforts where applicable, and ensure that provisions of U.S. 
security assistance and security cooperation activities reinforce human 
rights?

    Answer. If confirmed, I will seek out opportunities to meet with 
representatives of human rights organizations, civil society, and non-
governmental organizations in the United States, Sri Lanka, and 
Maldives. I will insist on and support full and robust application of 
Leahy Law requirements so that our security assistance and cooperation 
is consistent with human rights priorities. In addition, I will 
encourage military-to-military engagements and participation in U.S. 
military training programs, including through the International 
Military Education and Training (IMET) program, that expose Sri Lankan 
security forces to principles of democracy, human rights, and civilian-
military cooperation.

    Question 9. Will you and your embassy team actively engage with Sri 
Lanka and The Maldives to address cases of key political prisoners or 
persons otherwise unjustly targeted by Sri Lanka and The Maldives?

    Answer. If confirmed, I will be a staunch advocate for human rights 
and the rule of law. I will call for the release of political prisoners 
in Maldives and the repeal of Sri Lanka's Prevention of Terrorism Act 
and its replacement with a law that adheres to Sri Lanka's 
international obligations and commitments. I will call on leaders in 
both countries to promote tolerance for all faiths and to promptly 
condemn and investigate instances of discrimination and violence 
against members of religious minorities.

    Question 10. Will you engage with Sri Lanka and The Maldives on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. If confirmed, under my leadership, human rights, 
fundamental freedoms, and good governance will constitute core elements 
of the Embassy's engagement with the Governments of Sri Lanka and 
Maldives.

    Question 11. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 12. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 13. Do you or do any members of your immediate family have 
any financial interests in Sri Lanka or The Maldives?

    Answer. My investment portfolio includes companies that may have a 
presence in Sri Lanka or the Maldives; however, my holdings are below 
the $15,000 de minimis threshold in the conflict of interest laws. I am 
committed to ensuring that my official actions will not give rise to a 
conflict of interest, and I will remain vigilant with regard to my 
ethics obligations. I have consulted with the State Department Ethics 
Office and will continue to do so, and I will divest my interests in 
any companies they deem necessary to avoid a conflict of interest.

    Question 14. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am committed to fostering an inclusive work environment 
that benefits from a diversity of perspectives and empowers all team 
members to contribute fully to our mission. As a leader, I believe that 
a workplace that welcomes and values a wide variety of experiences, 
viewpoints, and skill sets is not only productive, but is also 
innovative. If confirmed, I will make clear to Embassy supervisors and 
team members my belief in the benefits of workplace diversity and my 
expectation that all employees will be treated with respect and 
supported in their professional development. Supervisors will have this 
specific obligation written into their work requirements so they can be 
held directly accountable for the professional development of employees 
and for fostering an environment in which fresh perspectives and the 
contributions of all team members are solicited equally.

    Question 15. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I am committed to recruiting and fostering the professional 
development of people from diverse backgrounds and under-represented 
groups into the Foreign Service and, if confirmed, within Embassy 
Colombo. Our diversity is a strength and an important American value. I 
will make clear my expectations for a supportive, empowering work 
environment so that Embassy Colombo can provide a model of this 
behavior. Supervisors will also have a specific obligation written into 
their work requirements so they can be held directly accountable for 
the professional development of employees and for fostering an 
environment in which fresh perspectives and the contributions of all 
team members are solicited equally.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Alaina Teplitz by Senator Edward J. Markey

    Question 1. Based on your experience in Nepal and elsewhere, how 
important is constitutional change for addressing geographically-based 
ethnic issues? Sri Lanka's process to change her constitution, an 
effort to provide a stronger federal arrangement for her provinces to 
address an issue that in part led to the civil war between the 
Government and the LTTE, is stalled. Is this a crisis and what role 
will the U.S. play in assisting the island toward a more stable 
political arrangement for her diverse inhabitants?

    Answer. Based on my experience in Nepal and elsewhere, I agree that 
political solutions that incorporate the views and perspectives of all 
stakeholders are necessary to address longstanding ethnic issues and to 
promote the rights and aspirations of all individuals. In Sri Lanka, 
there is broad consensus on the outlines of constitutional reform, as 
laid out in the constitutional assembly steering committee's interim 
report released in September 2017. The parliamentary debate on the 
subject that followed in November 2017 was welcome progress. I 
understand that the drafting of the text of constitutional revisions, 
based on the interim report and the parliamentary debate, is underway, 
and, if confirmed, I will encourage the Government to move forward with 
this process.

    Question 2. Sinhalese Buddhist nationalism and the belief that 
other communities--the Tamils, Muslims, Christians, etc.--must bend to 
their imperatives has only strengthened since the end of the war:Should 
the majority population be accommodated, Sinhalese accepted as the 
language of government, colonization and demographic engineering 
understood as the Government's prerogative and the military's rapacious 
activities in the North and East put down as the spoils of war? What 
alternatives do we have to push the Sinhalese to accept that they live 
in a diverse nation and that it is in their interests to give other 
communities the same rights that they claim themselves?

    Answer. Sri Lanka is a diverse nation where different communities 
and groups have interacted for thousands of years. The current 
government has taken significant efforts to embrace this historic 
diversity: the national anthem is now regularly sung in both Sinhalese 
and Tamil; thousands of military and police officers have been trained 
in the Tamil language; and expanded resources have been given to 
teaching Tamil and Sinhalese as second languages in schools. If 
confirmed, I will urge the Government of Sri Lanka to expand on these 
measures to promote the rights and aspirations of all Sri Lankans.

    Question 3. International atrocity crimes--the first of the 21st 
century--were committed during Sri Lanka's 26 year war, especially in 
the last years. Sri Lanka will have a hard time healing if these crimes 
are not dealt with and impunity for war crimes and crimes against 
humanity ended. There has been no accountability for what took place 
during and after the war and little reform of the legal and military 
structures that allowed those crimes, so serious human rights 
violations such as torture and sexual violence continue:
    The U.S. has led on urging reform, accountability and transitional 
justice since the war. What prospects are there to achieve progress on 
this agenda?

    Answer. If confirmed, I will press Sri Lanka to fully implement its 
commitments to justice, accountability, and reconciliation. I will call 
on the Government to establish a truth commission, reparations office, 
and a judicial mechanism to investigate and pursue prosecution, where 
appropriate, of alleged abuses and crimes. In my engagements with Sri 
Lankan leadership I will make it clear that we expect the Government to 
live up to its commitments to its people and their future. I will 
highlight that Sri Lanka's progress on these issues will facilitate 
expansion of bilateral relations and will support assistance 
programming that helps the Sri Lankan Government and civil society move 
toward reconciliation and non-recurrence of conflict.

                              __________

                             NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 18, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Flake, Gardner, 
Young, Menendez, Cardin, Shaheen, Kaine, Markey, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations committee will come to 
order.
    And we want to thank our nominees for being here, and look 
forward to a very productive hearing on their behalf and our 
country's behalf.
    But, on the front end, I want to welcome Senator Cornyn, 
who has been here once before. We thank him for his leadership 
and his service to our country, and we are always honored to 
have people like you here before us. And I know you want to say 
more about the nominees than we are even going to say about 
them. We are glad that you are going to do that and inform us.
    I also want to welcome Ms. Pompeo, the wife of our 
Secretary of State, for being here. And we are happy about the 
fact that her husband is also going to be here next Wednesday 
to testify before us at 2:30. We thank you for all that is 
involved in his service. Thank you for being here.
    With that, Senator Cornyn.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Well, thank you, Chairman Corker, Ranking 
Member Menendez.
    It is my pleasure to be back here with the Foreign 
Relations committee, this time to introduce Brian Bulatao, who 
has been nominated to serve as Under Secretary of State for 
Management.
    Brian previously served as Chief Operating Officer at the 
CIA, working with his longtime friend, Mike Pompeo. And now he 
aspires to move on to help Secretary Pompeo at the Department 
of State, where I understand they still have quite a few 
vacancies that they need to fill and I know the committee is 
hard at work on.
    Brian has an impressive resume that reflects his commitment 
to our country. He is a distinguished graduate from the United 
States Military Academy at West Point, and he served as a 
paratrooper in the Army Rangers. As a member of the Special 
Rapid Deployment Force, he deployed on several contingency 
operations, which included the capture of General Noriega, in 
Panama, and the liberation of Kuwait during Desert Shield.
    Following his honorable discharge, he attended Harvard 
Business School and went on to serve as an executive for 
several successful companies. He founded Thayer Aerospace, in 
Kansas, with his former classmate, our Secretary of State, and 
moved on to serve as the president of a packaging company in 
the Dallas-Fort Worth region. He left our State last year to 
help run the CIA, for which we forgive him, but--Texas was 
sorry to see him go--but our loss is the State Department's 
gain.
    Brian cut his teeth in government as the Chief Operating 
Officer at the CIA. As the number-three officer, Brian brought 
his broad private-sector experience to the world's premier 
intelligence organization. While there, he streamlined 
processes and helped empower the CIA's workforce. For his 
notable accomplishments there, Brian received the CIA 
Director's Award for Distinguished Service.
    As a member of the Senate Select Committee on Intelligence, 
I had the opportunity to meet with Brian during his tenure at 
the CIA, and I was impressed then, as I am now, with his 
professionalism and his commitment to the mission of the agency 
and our country.
    His experience in the CIA and in business will serve him 
well in his new role as Under Secretary of Management at the 
State Department. This position plays an important role, as the 
committee knows, in our Nation's diplomacy by managing one of 
our government's largest agencies and implementing key 
initiatives to make government more citizen-centered, 
effective, and efficient. The State Department has more than 
75,000 employees, I am told, in 276 posts around the world, and 
maintains diplomatic relations with 191 countries. That is a 
tough job to manage. And Brian will have direct oversight over 
the Department's 12 bureaus and offices.
    Of course, it will be his role to run the agent--the 
organization smoothly while Secretary Pompeo conducts his 
diplomatic--our diplomatic efforts around the world. So, we are 
fortunate to have such an adept and accomplished professional 
fill this position.
    And I thank you, Mr. Chairman and the entire committee, for 
your consideration of this excellent nominee. I know he is 
eager and excited to serve his country again in this new role.
    Thank you.
    The Chairman. Well, thank you. And thanks for coming to 
speak on his behalf. And I know you have other business, and 
you are welcome to depart, although you are welcome to stay.
    Today, we will consider the nominations of individuals to 
serve our Nation as Under Secretary of State for Management and 
Assistant Secretary of State for Conflict and Stabilization 
Operations. We welcome both of you and thank you for your 
willingness to serve.
    First, we have Brian Bulatao. Mr. Bulatao serves as the 
Chief Operating Officer at the Central Intelligence Agency and 
also brings to this position extensive management experience in 
the private sector. After graduating from West Point and 
serving his country for 7 years in the military, Mr. Bulatao 
also earned an MBA from Harvard Business School.
    The position of Under Secretary for Management is vitally 
important for the State Department because, in addition to 
making the trains run on time, the Under Secretary is 
responsible for taking care of the Department's most important 
asset, its people. The Under Secretary for Management oversees 
more personnel and more resources than any other position at 
the Department. Given the State Department's many ongoing 
management challenges, including the costs of embassy 
construction, the need to modernize the Department's 
cybersecurity, and the morale of the workforce, it is 
critically important that this position be filled quickly by 
someone who can hit the ground running.
    Brian Bulatao currently plays an almost identical role at 
the Central Intelligence Agency and had an accomplished career 
managing complex organizations in the private sector. So, I 
look forward to hearing his views on how to make the State 
Department more successful.
    Next, we have Dr. Denise Natali--did I pronounce it 
correctly? Thank you. I had the benefit of Cornyn pronouncing 
the other name well--to serve as Assistant Secretary of State 
for Conflict and Stabilization Operations. Dr. Natali has a 
combination of scholarship and field experience that is likely 
to serve her well in this role.
    This history of this bureau and the office that preceded it 
has not always been straightforward, and its mission has 
changed and evolved. Dr. Natali's greatest challenge will be to 
define and solidify the value in the minds of the rest of the 
Department and the interagency of a functional bureau with a 
keen focus on conflict prevention, crisis response, and 
stabilization. We appreciate her service at the National 
Defense University, and we wish her well in this endeavor.
    Our thanks to all of you being here. I know you will want 
to introduce your families at the appropriate time. We thank 
them for being here.
    And, with that, I will turn to our distinguished Ranking 
Member, my friend Bob Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Congratulations to the nominees.
    But, before I turn to them, let me just make some prefatory 
remarks.
    I want to reiterate publicly that this committee and the 
Senate must hold hearings on pressing topics with witnesses 
from the administration. The surreal images of a U.S. President 
undermining his intelligence agencies and capitulating and 
fawning over a dictator who attacked, and is attacking, our 
democratic system must not only be forever burned in our 
collective memory, it is also a call to action.
    The President took an oath of office to serve the American 
people and preserve, protect, and defend the Constitution. His 
behavior Monday in Helsinki, from my view, is an abdication of 
that oath. But, Mr. Chairman, we also took an oath when we were 
elected to serve the American people. We cannot abdicate our 
duties. Senators on both sides of the aisle must immediately 
demand upon open hearings from President Trump's national 
security team. Pro-Kremlin media, at this moment, are putting 
out more information supposedly about agreements that were 
arrived by President Trump with President Putin than anything 
that I know, as the senior-most Democrat on this committee, 
that--as far as I know, that any member of the committee knows, 
and that the American people know.
    So, I am pleased that Secretary Pompeo will be up here next 
week. But, let us be clear. We originally requested his 
presence to discuss the President's summit with the North 
Korean dictator. In the wake of his most recent unsuccessful 
trip to North Korea, we still need to know what is going on 
there. It has been quite some time now. Is America any safer 
from the threat of North Korea? We have no idea. And now we 
have what may seem as unlimited questions about the summit in 
Helsinki. And we need the time for the Secretary to cover these 
two critical topics. There are many other topics in the world, 
but certainly these two critical topics. And I hope he will 
afford us that time.
    Americans and the members of this committee deserve to know 
what the President and foreign autocrats are agreeing to behind 
closed doors. And if the administration is unwilling to consult 
with this committee in a meaningful fashion on vital national 
security issues, then we must consider all appropriate 
responses with regards to nominees before this committee. I 
hope it does not come to that, but I certainly will consider it 
if we cannot make progress.
    Let me turn to the nominees.
    The Chairman. May I say something?
    Senator Menendez. Yes.
    The Chairman. So, look, I will take backseat to no one in 
the United States Senate on challenging what happened at NATO, 
what happened at Helsinki. I will take a backseat to no one in 
this body. Pompeo is coming up here next Wednesday. We are 
going to have a full hearing. And every member of this 
committee is going to have a chance to take whatever issue they 
wish to take up. So, it is almost as if we cannot take yes for 
an answer. He is coming in. Every committee member will have a 
chance to grill him to find out what happened in that meeting. 
I look forward to doing the same.
    I do not know what happened. I do not know if anything 
occurred in North Korea, other than a press conference. So, I 
have got the same questions. But, the fact is, they are coming 
in next Wednesday. It is going to be a fulsome hearing. And I 
thank you for your cooperation in allowing that to happen.
    And I agree, State Department has been remiss in getting us 
witnesses on numbers of topics. I will agree to that. Secondly, 
though, there are a lot of positions that are not filled. So, 
you know, it is a Catch 22, is it not? I mean, we want to have 
hearings. In some cases, we do not have people to have hearings 
with. So, I look forward to working with you in putting 
whatever pressure we need to put on the administration to make 
sure we find out. The first step is getting him up here, like 
we have both pushed for, and it is now happening.
    So, you know, I take a backseat to no one on pressing this 
administration on some of the worst things that I have seen 
happen in public as it relates to our country. Not to you or 
not to anyone else on this committee.
    Senator Menendez. Well, Mr. Chairman, let me say, I am 
sorry if you took the comments personally. I am just simply 
saying what is obvious. We do not get administration witnesses 
here very easily. And yes, there are not, sometimes, witnesses 
to call up. But, that is not the fault of this committee. There 
are not even nominations, in many cases, until recently. And 
then we get nominations who--people file questionnaires, and 
they lie or they have incredible loss of memory. You cannot say 
that you never had--were part of a legal process, and then 
there are 25 cases that you were involved in. How do you forget 
that in your questionnaire? You can forget one. You cannot 
forget 25. You cannot say that, in your business pursuits, you 
only had one company, when you had 20. That is just an example 
of what we are getting with some of these nominees.
    So, I told the Secretary that I will work with him to 
pursue and fill the positions that we critically need and that 
I want to see happen. By the same token, I am not going to 
rubberstamp nominees who, in the process of their simple 
presentation to the committee, cannot be forthcoming and 
transparent, and that a simple LexisNexis search will show you 
all of these things. Something is wrong with that. Because if 
you cannot be truthful for me when you are trying to be 
considered by the committee, what am I to believe once you are 
confirmed? So, that is part of our challenge, Mr. Chairman.
    But, I am glad the Secretary is going to be here. I said 
that. But, we also need time. We have been trying to get him 
here since North Korea. Now we have two major issues. We need 
the time to ask those questions. And I appreciate that the 
Chairman worked very hard to get the Secretary to come, despite 
his travel schedule.
    The Chairman. Well, let me say this. And I am glad we are 
having this discussion in front of the person that is going to 
be managing so many people. It is too difficult to get him up 
here. It is. I agree with that, 100 percent. They are pressing 
us too hard trying to negotiate over nominations if we do this. 
I could not agree with you more. And just know, I stand 
shoulder to shoulder with you to put whatever pressure we need 
to put on them to get the right----
    Senator Menendez. And I know----
    The Chairman [continuing]. People up here. And----
    Senator Menendez [continuing]. That to be true.
    The Chairman [continuing]. Right now, it has been too hard. 
It has been frustrating. I am glad that he is coming. But, I 
would say, likely it may be the last time he comes up here. 
But, who knows. So, it has been a pain in the backside to get 
witnesses up here. I agree with you, 100 percent. And I am glad 
that our nominee is hearing this today. And hopefully, he is 
going to straighten that out.
    Senator Menendez. And so, it is a worthwhile discussion, 
Mr. Chairman.
    Mr. Bulatao, you served for years in the Army and as the 
Chief--most recently--as the Chief Operating Officer of the 
CIA. So, let me start by thanking you for your service to our 
country.
    You have been nominated to a position in the Department 
that is of great trust and importance. It is not a job that 
often generates any headlines, which is probably a good thing, 
but it is critically important to successfully executing the 
implementation of our foreign policy.
    You and I had an opportunity to meet. I appreciate that 
opportunity. I told you that I have serious concerns of 
understanding the management philosophy, particularly that took 
place prior to Secretary Pompeo, from a disastrous hiring 
freeze, to an ill-conceived reorganization proposal, to 
concerns that have been raised that have been referred to the 
Inspector General of politicalization of personnel, budget 
issues, so much more. So, as I told you, I do not ascribe those 
to you or even to the Secretary, as he inherited this, but I do 
want to know where you are coming from, if you are to be 
confirmed, on these critical issues.
    I would like to have a sense of what it is that your 
thinking is with terms of how you will come across to the job, 
how you intend to bring your experience to institute effective 
management and processes for the Department, where you think 
course corrections are needed. And I will look forward to your 
testimony.
    For more than 17 months into the administration, we finally 
have a nominee for the Assistant Secretary for the Bureau of 
Conflict and Stabilization Operations. So, I want to welcome 
Ms. Natali, who has a demonstrated record of service, 
particularly with regard to Iraq, and also has a great asset, 
in that she is originally from the great State of New Jersey.
    At a time of--it always helps--most of the time, it always 
helps--a time of proliferating crises across the globe, from 
Burma, Yemen, and South Sudan to Afghanistan and the Ukraine, a 
global record of 68 million people have been forced from their 
homes as a result of persecution, conflict, and violence. Our 
national security apparatus must evolve and have the right 
tools to effectively promote conflict prevention and post-
conflict stabilization. Appropriately investing in conflict 
prevention has the potential to save precious human lives and 
resources down the line. Prevention and stabilization tools are 
a vital complement to our military and intelligence tools. If 
confirmed to be the Assistant Secretary for Conflict and 
Stabilization Operations, you will not only have the 
responsibility to analyze and craft operational solutions to 
conflict and stabilization, but will also need to energetically 
lead and elevate a bureau that is demoralized, neglected, and 
misunderstood.
    I think some of us are concerned that the administration 
does not have a grasp and a commitment to the hard and complex 
work of conflict prevention and stabilization. I am pleased to 
see that you have a background in post-conflict relief, 
reconstruction, and stabilization, at least as it regards to 
Iraq. I look forward to hearing from you how you intend to be 
prepared to tackle these responsibilities on a much grander 
scale, as well as your priorities, plans, and intentions for 
the bureaus.
    Thank you, Mr. Chairman.
    The Chairman. All right. We will now turn to the nominees.
    Mr. Brian Bulatao, we thank you for your willingness to 
take on this critical role. I will have to say, I certainly 
look forward to what happens in this hearing. I do not know 
that we could find anyone more qualified for this position, nor 
committed, nor one who has a better relationship with the 
person he is going to be serving with after many years of you 
guys working together. So, I am glad for you to be here. I 
thank you, look forward to your 5-minute summary of your 
testimony. Any written documents you want to enter into the 
record will be done, without objection.
    Please go ahead.

STATEMENT OF BRIAN J. BULATAO, OF TEXAS, NOMINEE TO BE AN UNDER 
               SECRETARY OF STATE FOR MANAGEMENT

    Mr. Bulatao. Good morning, Chairman Corker and Ranking 
Member Menendez and distinguished members of the committee. 
Thank you for the privilege to speak with you today.
    With me this morning is my family: my fiance, April, my 
daughter, Tristan, my son, Connor. I am grateful for all their 
love and support throughout my years of service. They are my 
compass, they are my inspiration to reach new heights, and my 
comfort when I sometimes fall short. They keep me going, they 
keep me humble.
    I would be remiss if I did not also mention the support of 
my mother, Brenda, and my father, who is no longer with us. My 
dad was an immigrant from the Philippines. As a teenager during 
World War II, he witnessed firsthand the tragedies of armed 
conflict and when diplomacy fails. That defining experience 
compelled him on a lifelong mission to heal, and he became the 
first surgeon and family physician in the small town I grew up 
in, in north-central Pennsylvania. He was always up early in 
the morning, surgeries at the hospital, then driving over to 
his family medicine practice, where he would see every patient 
that was waiting for him in the waiting room, then back to the 
hospital to make further rounds. He taught me by his example 
the true meaning of selfless service.
    My mother's parents were immigrants from Greece. They came 
to this country in search of the American Dream. And I am 
forever thankful for my parents for their unwavering 
encouragement to live a life of integrity, to work hard every 
day, and to pursue the unlimited opportunities and freedoms our 
great country offers to every one of its citizens.
    I would also like to thank the President and Secretary 
Pompeo for their confidence in me and for nominating me to 
serve in this capacity. It is a high calling and an honor. And, 
if confirmed, I will spare no effort to faithfully execute the 
mission entrusted to me alongside our State Department team.
    Let me briefly highlight what this mission looks like from 
my perspective as the nominee for Under Secretary of 
Management. It starts with our culture. It starts with our 
swagger. It starts with the relentless pursuit of excellence in 
everything we do. If confirmed, I will work with the Secretary 
to foster a culture that encourages innovation and continuous 
learning. We need to empower people to lead. We need to harness 
the tremendous talent and expertise that resides in the 
Department. We need to unlock this potential by removing 
barriers, providing the team with the right tools, and 
streamlining administrative functions so we stay focused on our 
highest priorities and our core mission. So, for me, this is 
about driving a high-performance organization, and I want to do 
that by getting the basics right.
    If confirmed, I will focus on three basic building blocks 
for my initial 90 days. Number one, it is the right people. 
Number two, it is the right strategy. And, number three, it is 
the right execution with the right tools and foundation to 
pursue excellence.
    Let me explore number one, the right people. It is a 
multilayered question. Do we have the right quantity of people 
in the right location, with the right diversity, with the right 
skills and training? Do not mistake, this is a team effort. 
This includes our Foreign Service, our Civil Service, our 
locally employed staff. As of last month, we had 40-percent 
vacancies with our Under Secretaries, Assistant Secretaries, 
Deputy Assistant Secretaries, and our critical Ambassadors. If 
confirmed, I will support Secretary Pompeo's commitment to get 
our team on the field and engaged in competing on behalf of 
America.
    We need to be onboarding the right number of new hires to 
meet our core mission requirements. Hiring the best of the best 
with diverse backgrounds and experiences is critical to our 
global mission, and it will be a top priority for me.
    We need to have the right diversity, enriching our 
workforce by targeting diverse communities across the U.S. to 
meet our talent needs.
    And we need to be in the right locations. In essence, as 
the Director of the CIA reminds me, we are a field-forward 
organization, and we need to make sure we align our presence 
with our strategic priorities.
    Regarding the right skills and training, we have a 
tremendous asset in the Foreign Service Institute, and I am 
excited about the Foreign Area Specialized Training Center 
coming online next year. And we need to clearly articulate 
career paths and professional development model that enhances 
our bench strength for future enterprise leaders.
    Let me shift to basic building block number two, the right 
strategy and resource alignment. If confirmed, I look forward 
to working with each bureau across the Department to identify 
their strategic priorities. Really, what are we trying to 
achieve? How are we aligning our existing resource to that? 
What does success look like? And what are the measures of 
effectiveness we should be monitoring?
    I am committed to advocating for a budget that fully funds 
the Department's requirements, putting in place the appropriate 
oversight and metrics to ensure the Department meets its 
obligation to use taxpayer dollars wisely and effectively. I 
will support Secretary Pompeo in requesting funding that serves 
the national interest and implement the appropriation laws, as 
passed by Congress. I have never been shy to end a program that 
was no longer adding value, and I have never been shy to ask 
for additional resources if we need them for--to successfully 
execute the mission.
    And lastly, number three, right execution with the right 
systems, tools, and infrastructure to support excellence. I 
want to focus on three subcategories there. I want to make sure 
we get security, safety, and smart risktaking. I want to make--
(b) I want to make sure we have the right things going on with 
our overseas building operations. And third, cybersecurity and 
a modernized IT infrastructure.
    Regarding (a), there is no question the safety and security 
of our personnel and their families remains a significant 
priority. Secretary Pompeo cares deeply about, and works hard 
to protect, the people of the State Department. If confirmed, I 
will assure the Bureau of Diplomatic Security has the 
resources, the tools, the technology, and fully integrate it 
into Department decisionmaking to most effectively reform this 
critical task. We do not get paid to take risks, we get paid to 
know which risks are worth taking.
    Regarding overseas building operations, I am all for good 
design, but I will take on-time and on-budget every day of the 
week. If confirmed, I will work hard to ensure our people have 
secure new buildings, where required, and that they are 
completed in the best time, at the best cost and the best value 
to support the critical mission we have.
    Finally, if confirmed, I will help bring the Department 
operations into the 21st century by modernizing our systems and 
programs. That includes rapid cloud adoption and upgrading our 
IT architecture, increasing bandwidth overseas, moving data 
from silos, so we have an enterprise perspective, so we can 
better collaborate, enhance big-data analytics, and ultimately 
make better decisions on behalf of the American people.
    The women and men of the State Department serve our country 
in some of the most challenging places around the world, and 
they risk their lives daily. Whether serving in a war zone, an 
expeditionary location under the threat of terrorist attack, 
where diseases or criminal violence is prevalent, they work 
long hours, and they are often separated from their families, 
but they are passionate to advance our Nation's foreign policy 
and support the work of diplomacy.
    With so many challenges facing the United States around the 
world, our diplomacy and foreign affairs demands every 
technical, informational, logistical advantage we can muster. 
We must be aggressive in protecting our security, enhancing our 
prosperity, and advancing America's interest. And having a 
State Department team that is empowered and equipped with the 
right tools to achieve this mission is integral to making that 
happen.
    If confirmed, it will be my goal to do all this, and more, 
on behalf of the American people. Thank you for your time, and 
I look forward to your questions.
    [Mr. Bulatao's prepared statement follows:]


                  Prepared Statement of Brian Bulatao

    Good morning, Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee. Thank you for the privilege to 
speak with you today.
    With me this morning are my fiance April and my daughter Tristan 
and my son Connor. I'm grateful for all of their love and support 
throughout my years of service.
    I would be remiss if I didn't also mention the support of my mother 
Brenda and my father Agapito. My Dad was an immigrant from the 
Philippines and my Mother's parents immigrated from Greece and from 
Poland. They came to this country in search of the American dream. I am 
forever thankful for my parents unwavering encouragement to me to 
pursue all the opportunity this country affords.
    I'd also like to thank President Trump and Secretary Pompeo for 
their confidence in me and for nominating me to serve in this capacity. 
This is a high calling and an honor. If confirmed, I will spare no 
effort to faithfully execute the mission that is entrusted to me, 
alongside our State Department team.
    I can point back to my upbringing in a small rural town in north 
central Pennsylvania and my years at West Point as sparking my 
enthusiasm for public service. It was during my freshman year at West 
Point that I first met a hard-charging yet affable fellow cadet named 
Mike Pompeo. I can tell you first-hand, Secretary Pompeo's sharp 
intellect and heart for service was as evident then as it is today.
    After West Point, I was proud to serve as an active-duty Infantry 
officer for seven years, with deployments during Operation Just Cause 
in Panama, and Operations Desert Storm and Desert Shield in Iraq. I can 
tell you with certainty any warrior who has looked into the glazed eyes 
of a soldier dying on the battlefield understands and internalizes the 
value of diplomacy.
    After serving as an airborne Ranger, I enrolled in Harvard Business 
School. It was there that I became passionate about creating value and 
driving transformational change within large organizations. That 
newfound passion and my business school knowledge was put to use after 
Harvard during my time at the consulting firm McKinsey and Company.
    An even greater application of these operating principles came when 
Secretary Pompeo, a few other trusted West Point friends, and I founded 
Thayer Aerospace in Wichita, Kansas. Thayer was a machine shop with CNC 
mills & lathes. We made structural components of aircraft for 
manufacturers such as Boeing, Cessna, Gulfstream, Lockheed-Martin, 
Raytheon, and others. Eventually we grew it from scratch to one of the 
largest machine shops in the Mid-west.
    My experience at Thayer taught me how to build a high-performing 
organization from the ground up through a constant assessment of our 
operations, tools, personnel, and culture. After Thayer, I spent a 
number of years applying lessons learned there in executive-level 
positions at several private sector companies and non-profit boards.
    When Secretary Pompeo asked me to join him at the CIA, I was 
energized by the idea of applying my experiences in public service. As 
the Chief Operating Officer at Langley, it was my job to figure out how 
we could utilize every single one of our competitive advantages over 
our adversaries.
    At that time, CIA was emerging from a reorganization of its own and 
we believed there was ample opportunity to improve how one of America's 
crown jewel agencies functioned. We focused on empowering the workforce 
and driving excellence across every process, even the most 
bureaucratic. We developed innovative technologies to better support 
our officers in the field and to modernize and strengthen our cyber 
security across the organization.
    We developed a new framework for strategy to ensure the Agency was 
driving toward a shared aspiration and mission priorities for today and 
tomorrow. This included aligning our resources to the highest strategic 
priorities; and building a deep bench of enterprise leaders through 
training, career development, and deliberate succession plans.
    One of the areas where we saw incredible results was with our 
recruitment of new and diverse talent. Through collaborative teamwork, 
we rethought how we generate new applications, reframed our recruitment 
messaging, utilized data science to drive yield, and modernized our 
onboarding and security clearance process.
    The culture of empowerment created greater organizational agility 
and a workforce that was unleashed to take on problem sets in new ways. 
I certainly didn't come up with every idea, instead I empowered our 
team to consider how we could do it better, fail faster, and take 
smarter risks. Across the board, we embraced a spirit of innovation in 
order to boost the speed and precision of a large organization 
operating in a dangerous and competitive environment.
    If confirmed as the Under Secretary for Management, this is the 
same approach I intend to bring to the U.S. Department of State. The 
Department's hard-working, patriotic, and dedicated teams deserve to 
have an organization that optimally utilizes their talents. And the 
American people must have confidence that the State Department makes 
the best use of their resources and provides the best practical support 
for our diplomatic initiatives that rely on the strength of our 
alliances, partnerships, and engagement.
    If confirmed, I appreciate the broad management responsibility I 
will have for the Department's more than 76,000 personnel--Civil 
Service, Foreign Service, and Locally Employed Staff--and my direct 
supervision over 12 bureaus and offices. These women and men serve our 
country in some of the most challenging places around the world, and 
risk their lives daily, whether serving in war zones, amidst criminal 
violence and disease outbreaks, and with the threat of terrorist 
attack. They work long hours, often separated from their families, to 
advance our nation's foreign policy and support the work of diplomacy.
    There is no question that the safety and security of our personnel 
and their families must be the highest priority. I know Secretary 
Pompeo cares deeply about and works hard to protect his people.
    I will ensure that the Bureau of Diplomatic Security has the 
resources, tools, and technology and is fully integrated into 
Department decision-making, to most effectively perform this critical 
task.
    I will work hard to ensure our people have secure new buildings 
where required, that are completed on time, on budget, and incorporate 
cutting-edge IT infrastructure to support the critical missions they 
execute globally.
    If confirmed, I will seek more creative ways to staff the 
Department to meet today's mission and be well positioned to meet the 
challenges of the future. This will include hiring the full range of 
expertise, from our diplomats and subject-matter experts, to our 
specialists in the field like medical services and facilities 
management, to our security personnel. Hiring the best of the best with 
diverse backgrounds and experiences is critical to our global mission 
and will be a top priority for me.
    I am committed to advocating for a budget that fully funds the 
Department's requirements and putting in place the appropriate 
oversight and metrics to ensure the Department meets its obligation to 
use taxpayer dollars wisely and effectively. I will support Secretary 
Pompeo in requesting funding that serves the national interest and will 
implement the appropriations law as passed by Congress.
    Finally, if confirmed, I will help bring Department operations into 
the 21st century by modernizing its systems and programs. With so many 
challenges facing the United States around the world, our diplomacy 
demands every logistical, technological, and informational advantage we 
can muster. We must be aggressive in protecting our security, 
generating prosperity, and advancing our values. Having a State 
Department team that is empowered and equipped with the right tools to 
achieve the mission is an integral part of making that happen.
    If confirmed, it will be my goal to do all this and more on behalf 
of the American people. Thank you for your time, and I look forward to 
your questions.


    The Chairman. Thank you. Thank you very much.
    Dr. Natali.

  STATEMENT OF DENISE NATALI, OF NEW JERSEY, NOMINEE TO BE AN 
  ASSISTANT SECRETARY OF STATE FOR CONFLICT AND STABILIZATION 
                           OPERATIONS

    Dr. Natali. Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee, it is an honor to 
appear before you today as President Trump's nominee to be 
Assistant Secretary of the Bureau on Conflict--of the Bureau of 
Conflict and Stabilization Operations. If confirmed, I look 
forward to working with you and members of the committee, the 
White House, Secretary Pompeo, and the Department of State.
    I would like to take a moment to thank my family, 
particularly my parents and my daughter, Heline, who is with me 
today, for their unconditional support and love, which has not 
only shaped who I am, but gives you an idea of how I am going 
to approach this job. I grew up in a small ethnic working-class 
neighborhood in New Jersey, where my nuclear family, 
grandparents, aunt, uncle, and cousins all lived on the same 
side of the street. My parents did not go to college, although 
my mother, at 54 years old, got her Ph.D. in theology, but they 
made sure that their five children would. And my father, who is 
now 84, gave us wonderful life lessons. But, the one that 
stands out the most is this one. He would say, ``Be whatever 
you want to be, just do not be content with life.''
    I spent the last 30 years doing just that. From my time 
working for a healthcare NGO in Peshawar, Pakistan, to serving 
as a DART team member in northern Iraq in support of Operation 
Provide Comfort right after the first Gulf War, to many years 
in Iraq--in post-Saddam Iraq, teaching, building universities, 
and doing my independent research, I learned the important 
triggers of conflict, the dynamics on the ground, how they 
interact with regional actors and supernational interests, and, 
most importantly, the very messiness of transitioning from war 
to peace, from authoritarianism to democracy.
    The past 7 and a half years, I have had the opportunity to 
work with some of the greatest minds, strategic thinkers, and 
colleagues at the National Defense University, where I also 
have been able to channel all of this local experience to the 
strategic level, not just on Iraq, but in support of our senior 
leaders so that they can make their strategic decisions, as 
well as other U.S. policymakers, particularly in our 
countering-ISIS campaign effort.
    In preparing for the future in this position, I see one 
overarching problem or challenge, and that is this. How do we 
respond--the balance between the pressing need to provide 
stabilization assistance and the concomitant need to be 
judicious with our resources and also to be more efficient in 
our outcomes--or more effective in our outcomes? Here are some 
examples. The trends in global conflict are alarming. There has 
been an uptick in major civil war and high-intensity conflicts 
since 2010. More than half of the conflicts that have ended 
since 2000 have returned to violence within an average of 7 
years. And the consequences are no less critical: proliferation 
of militias, the emergence of terrorist groups such as ISIS, al 
Qaeda, economic loss, and, worse still, massive refugee flows 
and the atrocities against civilians. All of these consequences 
have critical impact on our national security interests.
    While the United States certainly has strong interest in 
promoting stability, we simply cannot respond to all conflicts. 
So, this is where I ask, How do we move forward? And I would 
turn to the 2018 Stabilization Assistance Act, which is an 
important document that was coauthored by CSO, the Office of 
Foreign Assistance Resources, in conjunction with USAID and 
DOD. And it lays out important guidelines on how to 
strategically determine how, when, and where we provide our 
stabilization assistance so that we can best leverage our 
diplomatic engagement, military and economic support, and to 
assure greater impact and effectiveness.
    I turn to this review because, if confirmed, I would like 
to implement some of the key recommendations of this guideline. 
And here are my three top:
    To clarify, as we--as has been indicated, the CSO mission 
and its value added into the Department of State. I understand 
that CSO does remarkable work, and I would like to further 
integrate that and increase the connectivity between CSO and 
other--and the State Department as a functional bureau.
    Secondly, to streamline stabilization. I would like to 
translate the roles of the State Department and the Department 
of Defense into an--as agreed upon in the SAR--into a practical 
day-to-day division of labor that just gets the job done 
efficiently. Secondly, within this, greater collaboration 
within the interagency and burden-sharing with our 
international partners.
    Third is to institutionalize a process where we can 
prioritize aid. And I would like to use the word ``strategic 
triage.'' How do we align our stabilization priorities--and I 
would, with the 2017 White House National Security Strategy--as 
well as where we can have an impact, and continuously measure 
how effective we are? Are our programs working? Are we being 
successful along the way?
    By addressing these issues, I hope to ensure more 
realistic, effective, and cost-efficient stabilization 
operations that provide invaluable to--support to U.S. policy 
and our national security interests.
    Mr. Chairman, Ranking Member, members of the committee, 
thank you for the opportunity to appear before you today. I 
look forward to your questions and comments.
    [Dr. Natali's prepared statement follows:]


                Prepared Statement of Dr. Denise Natali

    Chairman Corker, Ranking Member Menendez, and members of the 
committee, it is an honor to appear before you today as President 
Trump's nominee to be Assistant Secretary for the Bureau of Conflict 
and Stabilization Operations (CSO) and Coordinator for Reconstruction 
and Stabilization. I am grateful for this opportunity, and if 
confirmed, I look forward to serving in the administration and working 
with you and other members of the committee, the White House, Secretary 
Pompeo, and the Department of State.
    I would like to take a moment to thank my family, and particularly 
my parents and daughter, for their unconditional love and support which 
has shaped who I am and how I will approach this position. I grew up in 
an ethnic working-class neighborhood in New Jersey where my nuclear 
family, grandparents, aunt, uncle and cousins all lived on the same 
street. My parents did not go to college (although my mom got her Ph.D. 
in theology at 54 years old) but made sure their 5 children did. Of the 
numerous life lessons that my father, now 84-years old, gave me and my 
siblings one has stood out the most: be whatever you want to be, but 
just don't be content with life.
    I have spent much of the past 30 years doing just that. Having 
worked for a non-governmental organization (NGO) in Peshawar, Pakistan, 
served as a USAID DART team member in support of Operation Provide 
Comfort II in northern Iraq, and spent years teaching and researching 
in post-Saddam Iraq and the neighboring region, I have gained a deep 
understanding of the triggers of conflict and instability, complexities 
of local dynamics, and the interaction of these dynamics with regional, 
national, and inter-agency operations and interests. I have seen the 
human, institutional, and economic costs of conflict and its aftermath. 
I realize the messiness of transitions from war to peace, and the 
tradeoffs involved.
    During the past seven and a half years while at the National 
Defense University, I collaborated with some the nation's brightest 
strategic thinkers and regional experts and channeled my expertise into 
strategic level analyses for senior leaders in DOD and other U.S. 
Government stakeholders, to include support for the counter ISIS 
effort.
    Looking ahead, one overarching challenge (and objective) is 
evident: balancing pressing demands for stabilization assistance with 
the need to be more judicious with our resources and realize more 
effective stabilization outcomes. Trends in global armed conflict are 
alarming. They reveal 1) an up-tick in major civil wars and high-
intensity conflicts, particularly since 2010; 2) that more than one 
half of conflicts that have ended since the early 2000s have fallen 
back into violence within 7 years and; 3) by 2030, according to World 
Bank data, half of the world's population will live in countries 
affected by violence and instability.
    The causes and consequences of these conflicts today are no less 
consequential. State breakdown and failed governance have resulted in 
ungoverned spaces, proliferation of militias, and emergence of 
terrorist and violent extremist groups such as the Islamic State of 
Iraq and Syria (ISIS) and al-Qaeda offshoots, as well as economic loss, 
mass refugee flows, and atrocities against civilians--consequences that 
directly undermine U.S. national security interests.
    Yet while the U.S. has strong national interests in reducing 
violent conflict and promoting stability it cannot respond to all 
conflicts. How should the U.S., and CSO in particular, move forward in 
addressing this issue?
    The 2018 Stabilization Assistance Review (SAR), co-authored by CSO 
and the Office of Foreign Assistance Resources, USAID, and DOD, offers 
an important road map for future stabilization operations and policy. 
It lays out guidelines in how to more strategically determine where, 
how, and when we engage in stabilization operations and best leverage 
U.S. diplomatic engagement, military, and economic support to assure 
impact and effectiveness.
    If confirmed my priorities will be to follow the guidelines and 
implement key recommendations of the SAR. First, I will clarify the CSO 
mission and its value-added in the Department of State. I understand 
that CSO does remarkable work and I would like to better integrate CSO 
into State Department as a functional bureau, while honing in on CSO's 
unique expertise in providing timely data-driven analyses that are 
integral to effectively planning and executing operations and 
influencing stabilization policy.
    Second, I will streamline stabilization. This effort entails 
translating the roles for State and DOD as agreed upon in the SAR, into 
a practical day to day division of labor that will get the job done and 
assure greater collaboration and burden sharing. It starts with 
strengthening the ability of CSO to help State fulfil its role as the 
lead agency for stabilization within the U.S. Government. It means CSO 
will do more the help State's senior leadership organize and facilitate 
the planning process for determining desired political outcomes that 
the SAR rightly points out is the essential starting point for 
effective stabilization.
    Third, I will institutionalize a process of ``strategic triage'' 
that aligns our stabilization priorities with U.S. national security 
interests as indicated in the 2017 White House National Security 
Strategy (NSS). Selectively targeting where, when, and how the U.S. 
engages in stabilization should also be based on where the U.S. can 
have an impact. In doing so, I would also implement regular assessments 
of projects to measure their impact (alongside monies spent) on 
national security and policy objectives. This effort can help readjust 
operations where needed, regularly modify assumptions and approaches 
when needed to determine effectiveness and policy recommendations.
    By addressing these issues, I hope to ensure a more streamlined, 
realistic, effective, and cost-efficient stabilization operations that 
provide invaluable support to U.S. policy and help achieve our national 
strategic interests.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to appear before you today. I welcome 
your comments and questions.


    The Chairman. Thank you so much. Thank you.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    Thank you both for your testimony.
    Mr. Bulatao, let me just start off by saying you are a 
great example of what immigration has meant for our country. As 
I listened to your opening statement--a Filipino father, a 
Greek mother, served your country as a Ranger, got to be the 
CIA Operations Officer, management, and now nominated for one 
of the most significant positions in the State Department--it 
is an extraordinary history, one that we should be, 
collectively, proud of and be reminded of.
    I have two questions before I get to management questions. 
Do you agree with the intelligence community's assessment that 
Russia interfered in the 2016 elections and with the intent to 
harm Secretary Clinton's candidacy and help elect President 
Trump?
    Mr. Bulatao. Senator, I have reviewed the ICA report and 
concur with its findings.
    Senator Menendez. And will you trust and rely on 
intelligence from agencies that will be working alongside you 
as you think about what are the needs of the Department?
    Mr. Bulatao. Senator, I implicitly trust the 
professionalism, the objectivity, and the great skill and 
courage of our members of our intelligence community, and look 
forward to working with them in my potential new role, if 
confirmed.
    Senator Menendez. Thank you very much.
    If confirmed, will you commit to making sure the Department 
responds promptly to our letters and requests for information?
    Mr. Bulatao. Yes, sir.
    Senator Menendez. I am troubled that political appointees 
at the Department of State have sought to sideline career 
officials based on political loyalty. You and I talked about 
this a little bit, and I appreciate your answer, but I want to 
hear it for the record. And I have asked the Inspector General 
to look into these practices. Do you think such efforts, if 
they are true, have any place in the Federal Government?
    Mr. Bulatao. Senator, I look forward to seeing the results 
of the Inspector General report and that of the Special 
Counsel. I know the Secretary truly values the professionalism 
of both our Civil Service and Foreign Service. And I, myself, 
have reached out to all former Under Secretaries of Management, 
no matter what administration, for the last 20 years--there has 
only been four, by the way--and appreciate their input. I think 
the Secretary believes the Department will be successful by 
surrounding ourself with successful people. The kinds of things 
we need to be looking for are intellect, expertise, judgment, 
teamwork. And that is how we should be selecting our people. 
And if any of that is occurring, I would encourage, if I am 
confirmed, that everyone reports to the appropriate channels so 
they can be looked at.
    Senator Menendez. And if that was the case, how would you 
respond--if you found that--those allegations to be true?
    Mr. Bulatao. Well, Senator, again, the important thing for 
the Department to succeed is have the best people in the best 
roles. I do not believe it--that using that criteria is a way 
we should be selecting or determining people's roles in the 
Department.
    Senator Menendez. What is your current view on the number 
of vacancies in critical State Department leadership positions? 
And how soon, if you are confirmed, do you expect to see 
nominees for open Under Secretary and Assistant Secretary as 
well as Ambassadorial posts?
    Mr. Bulatao. Senator, that is a critical question. And, if 
I am confirmed, I know I will support the Secretary's goal of 
getting our team in place. There is a critical shortage now. 
There is a lot of work being done to get those nominees before 
the committee. There is a lot of work being done to make sure 
that they are vetted and ready to go. And so, we can start 
engaging on behalf of the American people. I will----
    Senator Menendez. And----
    Mr. Bulatao. If confirmed, I will commit to helping in that 
regard.
    Senator Menendez. And I hope that you will take the 
discussion that the Chairman and I had, back--reaffirming to 
the Secretary what I told him personally. We want to work with 
you to fill positions, but we need honest--somebody needs to do 
some vetting, here, before they get to us. And if they get to 
us, which--fine--whether they be a political or career 
appointee, I have no problem with that, but they need to be 
transparent. Otherwise, we fall--we come into roadblocks, and 
we do not get positions filled. So, I hope that you, 
particularly in this position, will, hopefully, help us execute 
it in a better way.
    Mr. Bulatao. I will, Senator.
    Senator Menendez. Will you come before the committee for 
full public hearings on the--any restructuring of State or 
USAID, if major changes are proposed, prior to make those 
changes?
    Mr. Bulatao. Yes, Senator.
    Senator Menendez. I appreciate that. You and I talked about 
the difference between consultation and notification. 
Notification is when you tell me something you are going to do. 
Consultation is when we talk about it before it happens. And 
not just me, but the committee. And we may not always agree. 
And that is--that will probably happen. But, at least we will 
have an opportunity to give you input. So, I appreciate your 
commitment to that.
    Let me turn to--I have other questions, but I will save 
those for the record--let me turn to Dr. Natali.
    I appreciated very much your statements. And I just have a 
caveat, though, of a concern of what you said. We all want 
efficiencies in whatever it is that we are doing. But, 
sometimes, you know, I look for individuals who are going to be 
Assistant Secretaries within their field who will be strong 
advocates within their field. As I said to Mr. Bulatao, are you 
going to have a sharp elbow--as a Ranger, I am pretty sure he 
does, but--you know, but are you going to have a sharp elbow 
when you are internally in the process of advocating for the 
mission of your bureau? And so, while we want to be effective 
and efficient and cost-effective, sometimes we have to make the 
case as to why the mission of the bureau can actually save us, 
not only money, but lives, at the end of the day. If we have 
more conflicts and stabilization efforts, sometimes we do not 
have to send our sons and daughters abroad.
    And so, do you understand what I am getting at? I am a 
little concerned about your remarks in the--that are very 
focused on efficiency, but I also want to know that you are 
going to be an advocate when it is--particularly when it is 
appropriate for the bureau to have the resources necessary to 
accomplish a mission.
    Dr. Natali. Thank you, Senator.
    Senator Menendez. If you would put your microphone on.
    Dr. Natali. Thank you, Senator. I fully agree with you.
    The one part--I am trying to--keeping to my 5 minutes--I 
fully advocate for preventative action so that we can obviate 
kinetic action. So, that includes engagement fully in the 
Atrocity Prevention Board. For example, making sure--and 
enforcing or supporting much of the data analytics that the 
Department does. That tries to forecast where we see conflicts 
or potential conflicts so that we can get involved. This is not 
about moving back from engagement. It is about probably 
spending more time beforehand so that we can mitigate some of 
the negative. And, as we know, human tolls of atrocities also 
make reconciliation and conflict stabilization much more 
difficult on the back end. So, I--again, I have--I fully agree 
with you, and I look forward to working with you on this issue, 
if confirmed.
    Senator Menendez. I have a few other questions, Mr. 
Chairman, but I will save it for a second round.
    The Chairman. Yes, sir.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations, Mr. Bulatao and Dr. Natali, on your 
nominations. And I look forward to working with you both if you 
are confirmed.
    I want to start with you, Mr. Bulatao, and follow up a 
little bit on some of the questions that Senator Menendez 
started to raise. As you may be aware, earlier this month, the 
Senate Appropriations committee unanimously approved its State 
foreign operations bill, which provides $54.2 billion in 
funding for the State Department and USAID. This is a stark 
contrast to the proposal that was submitted by the 
administration, which would have slashed the international 
affairs budget by over 22 percent from the previous year's 
enacted level. If confirmed, will you work, and will you commit 
to this committee that you will work, to protect the budget 
that Congress passes for the State Department?
    Mr. Bulatao. Senator, if confirmed, I commit to using any 
additional funding to advance the administration's priorities 
in line with congressional directives and consistent with the 
applicable law.
    Senator Shaheen. Thank you. And are you also willing to 
publicly commit to the committee to forswear impoundment, which 
you know is illegal under the Budget and Impoundment Control 
Act of 1974, which is the way that some administrations have 
tried not to spend the money that Congress has appropriated?
    Mr. Bulatao. Senator, again, I look forward to working with 
the committee, working with Congress, to understand our 
priorities for funding, and will spend the funding applicable 
with consistent law.
    Senator Shaheen. Thank you.
    Again, to follow up on Senator Menendez's questions, I 
share the concerns about staffing levels at the State 
Department. I was very pleased to hear you talk about that 
being a priority. According to the nonpartisan American Foreign 
Service Association, funding for core diplomatic capabilities 
has fallen by almost 25 percent over the last decade. And, 
during the same period of time, diplomatic spending by China 
has increased over 40 percent.
    So, Mr. Chairman, I would ask if we could include an 
article on this subject from the American Foreign Service 
Association in the record.
    The Chairman. Without objection.
    Senator Shaheen. Thank you.


    [The information referred to is located at the end of this 
transcript.]


    Senator Shaheen. Also, I have read some of those disturbing 
reports about administration appointees at the State Department 
who have gone through personal social media pages of career 
State Department employees to determine their personal 
leanings, and have called them to task. And the suggestion is 
that some people have been dismissed because of that. Again, I 
heard you say to Senator Menendez that you will take very 
active measures to address those kinds of activities at the 
State Department. Did I hear that correctly?
    Mr. Bulatao. Yes, Senator.
    Senator Shaheen. Thank you.
    Dr. Natali, you talked about the importance of our 
stabilization efforts to be prioritized where they can really 
make a difference. Did I understand that correctly?
    Dr. Natali. Where we can have--yes.
    Senator Shaheen. I just got back, a little over 2 weeks 
ago, from Syria and Iraq. And I was very impressed, much more 
so than I had expected to be, by progress in Iraq, where they 
have almost succeeded in working with us to defeat ISIS in 
Iraq, where they have dramatically reduced terrorist attacks 
there, where we have seen an election that went almost without 
attacks, that, while we did not have as many people as I would 
have liked participate in that, it got--it was viewed as being 
pretty fair and pretty free. So, I was pleased by what I saw. 
It was a very different environment than the last time I had 
visited Iraq.
    But, I was concerned, because I heard, there and in Syria--
we were in northeastern Syria, along the Turkish border--we 
visited in Manbij, flew over Kobani, visited some other small 
towns in that area--where reconstruction has started, where 
stabilization efforts have been very successful, where we are 
working very closely with the SDF, the Syrian Defense Forces, 
who were much more professional than I had expected them to be. 
So, I was really optimistic and pleased with the progress that 
I saw there.
    What I was concerned about was that what we heard from our 
people on the ground is that the stabilization funding that is 
so desperately needed to maintain the progress that has 
occurred in both Iraq and Syria is being held up by the 
administration. And, while it is a lot of money, relatively 
speaking, it is not a lot of money. And if we do not provide 
that funding soon, we are going to see those gains undermined, 
and we are going to see Russia and Iran and the Assad regime 
come back into those areas in Syria. We are going to see the 
Iranian influence in Iraq undermine the progress there.
    So, can I ask you if you think we need to provide those 
stabilization funds? And will you commit to working to do that 
if you are confirmed?
    Dr. Natali. Thank you, Senator.
    I agree with you. And, again, having have spent so much 
time in Iraq before ISIS, during, and speaking to some of the 
NGOs--I was just in Iraq in April--one of the most important 
things is to be there so that we can consolidate those gains so 
that ISIS does not come back. We are fortunate to have local 
legitimate authorities on the ground to work with. The same in 
Syria. My concern I share with you is, if we just are not 
there, we are just opening up the opportunities for ISIS to 
return.
    So, yes, if confirmed, I do look forward to working with 
you on this issue so that we can continue, not to stay there 
ourselves, but to work with locally----
    Senator Shaheen. Right.
    Dr. Natali [continued]. Legitimate authorities so that they 
can provide security to their regions. And we have seen that in 
Iraq. I agree with you. Thank you.
    Senator Shaheen. Absolutely. Would you also agree that the 
threat is not just from ISIS, it is also from Iranian and 
Russian influences in those regions?
    Dr. Natali. Yes, I do.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine. Excuse me. Senator Young. 
Thanks for coming back, and the floor is yours.
    Senator Young. Thank you, Chairman.
    Well, I thank our nominees for your interest in serving our 
country.
    Dr. Natali, in your prepared statement, you suggest that 
the Department of State sometimes struggles in its practice to 
fulfill its role as the lead agency for stabilization within 
the U.S. Government. Is that a fair characterization of your 
view?
    Dr. Natali. I would say--thank you, Senator--I would look 
to, again, the SAR, the Stabilization Assistance Review, which 
addresses that issue by trying to--by saying we are going to 
clarify the role of what stabilization is and who does what. 
So, taking from the SAR, stabilization is inherently a 
political endeavor, which is nested in the State Department, 
with CSO as the lead, and then with delineated responsibilities 
between USAID and DOD. So, based on some of the roadmap 
projected in the SAR, I would say yes, that State Department 
would be the lead in stabilization as a political endeavor.
    Senator Young. Why do you believe a strengthening of the 
CSO is necessary to assist with the goal of stabilization?
    Dr. Natali. Thank you.
    Because the mission of CSO is to anticipate, prevent, and 
respond to violent conflict that undermines U.S. national 
security interests. CSO has remarkable talents in not only 
anticipating through its data analytics, but its expeditionary 
forces that go and embed with U.S. Special Forces, where they 
can, support to U.S. embassies overseas, and diplomatic 
missions, and then taking that, this very strong analytical 
toolkit that does not apply just to one region, but that can be 
used across regions in a very efficient way for our 
policymakers so that we can look at this and say, ``What are 
the tradeoffs? How can we make this decision more 
effectively?''--as a pattern to be used. So, this is why I 
think that it should be embedded and enhanced within CSO.
    Senator Young. I see. Thank you.
    So, you have extensively researched stabilization and 
conflict and--I know you have been preparing for this 
nomination. Why do you believe we have not seen more progress 
in Afghanistan in our stabilization efforts after such enormous 
investment over 17 years?
    Dr. Natali. Thank you, Senator.
    I have read the recent SIGAR report on Afghanistan, and one 
of the findings that they made was quite harsh, that, 
basically, stabilization has been a failure.
    Senator Young. Do you agree with those findings?
    Dr. Natali. I have not been in Afghanistan for years, but I 
would say that it was a very sound report, yes. I think it 
was----
    Senator Young. Okay.
    Dr. Natali [continued]. It was very analytically rigorous. 
Nonetheless, that they also tried to stabilize in areas where 
there was not enough security. You cannot engage in a region 
where it is still unstable; secondly, where you do not have 
local partners or local legitimate authorities with which you 
can transfer that stabilization assistance. So, there is other 
aspects of it. But, nonetheless, engaging in stabilization 
where you do not have the requisites on the ground will not 
allow you to have sustained success.
    Senator Young. So, you have indicated you believe the 
report was rigorous and----
    Dr. Natali. I think it was----
    Senator Young [continued]. Impossible----
    Dr. Natali [continued]. Yes, I----
    Senator Young [continued]. Those are my words--but, I think 
they fairly represent----
    Dr. Natali [continued]. Yes, Senator.
    Senator Young [continued]. And so, what are your thoughts 
on the recommendations for stabilization efforts, going 
forward, that are provided in that SIGAR report?
    Dr. Natali. And some of this is also replicated in the SAR 
report, which is making sure that--again, that you have an--the 
conditions in place where you can make an impact, in my 
understanding, means that you have enough--sufficient security, 
because the safety and security of our personnel is the utmost 
priority. Secondly, where you have locally legitimate 
authorities and assistance in place, that can peaceably manage 
this conflict and prevent violence from returning. If we do not 
have those partners on the ground, it is going to be difficult 
to do. Third, in addition to enhancing governance, addressing 
grievances, providing services, there is also a local level to 
this. And that is, Do you have the political bargains and the 
local agreements that can be made between the local actors on 
the ground? And I go back a lot to the local-actors part, 
because I have--in my past, being on the ground, if you do not 
have that component to it, if you do not have local buy-in, it 
just will not work.
    Senator Young. You referenced the SAR report. And there 
are, no doubt, some overlap--there is no doubt some overlap 
between the SAR report and the SIGAR recommendations. To your 
knowledge, has a decision been made by the administration to 
adopt the SAR's recommendations?
    Dr. Natali. Thank you, Senator.
    To my understanding, I do not--I am not aware that it has 
been, of yet. The SAR just was--came out a couple of months 
ago. Thank you.
    Senator Young. Once confirmed, do you commit to reporting 
back to me, to other members of this committee, in providing an 
update on implementation of the SAR?
    Dr. Natali. Yes, Senator, I do. I commit to that.
    Senator Young. Okay.
    Dr. Natali. Thank you.
    Senator Young. Much appreciated.
    Thank you.
    The Chairman. Thank you, sir.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thank you, to the witnesses.
    Mr. Bulatao, a couple of thoughts. You talked, in your 
testimony, about, in your management capacity, should you be 
confirmed, trying to deal with personnel and understand if 
there are obstacles in their way. One thing that I have found 
very helpful to do when I have traveled for this committee is 
to meet with first- and second-tour FSOs, and without the 
Ambassador present. And I usually say, ``Congratulations, you 
have gotten a job that is really hard to get. What will be the 
determinant about whether you stay and make this a career or 
whether you exit early?'' And that is a good opening question 
that usually then leads to quite a long discussion. And some of 
the things--you know, there is all kinds of issues that might 
make people to make a decision about whether to stay, or not. 
But, there are frequently a number of, sort of, I would call 
them, kind of, picayune administrative frustrations that people 
will put on the table as--you know, ``I passed the most intense 
security vetting ever to get this job, but I have to sign a--in 
triplicate, a requisition form if I am going to get a pencil 
out of the supply room. I mean, can they not trust me on 
this?'' So, I would encourage you to have those kinds of 
discussions, especially with people new or at different points 
in their career in the Foreign Service, because I think you can 
learn some good things about those kinds of obstacles that you 
can clear out of folks' way.
    Second thing I would just like to bring to your attention 
is--I have worked very much with committee members here on an 
ongoing project being constructed in Virginia, the Foreign 
Affairs Security Training Center, at Fort Pickett, in Virginia. 
That is scheduled to open in 2019. And I would like your 
commitment, at some point, to visit that facility as it is 
under construction. It is to train our Foreign Security 
Officers and others to make sure that they can deal with 
enhanced security challenges around the world. And after you 
have had a chance to visit, I would like to dialogue about the 
progress of that particular project.
    Mr. Bulatao. Senator, if confirmed, I will make it a 
priority to get down there and see that. I have seen the video 
of what that is going to look like. I am very excited that we 
are going to be able to consolidate our training there and 
offer every Foreign Service Officer heading downrange the 
ability to get the right training and skills, that that is 
going to be a fantastic facility.
    Senator Kaine. And with your own background, coming from a 
military background, I think you will have a high sensitivity 
to those security needs.
    Dr. Natali, good to see you again.
    Dr. Natali. Thank you, Senator.
    Senator Kaine. I appreciated having you as a witness when 
we did a hearing on minority--the treatment of minorities in 
Iraq, a while back. And I want to ask you about--you talked 
briefly about some of the CVE tools that CSO has developed. You 
have a Countering Violent Extremism Assessment Framework, which 
identifies high-risk areas and communities, sort of to give us 
some advance noticed of places where there may be problems. CSO 
also has developed a Monitoring and Evaluation Guide, which 
supports integration of high-quality monitoring into State 
Department programs. If confirmed, what priority would you 
place on the development, improvement, refinement of these 
analytical tools? And how could we use those analytical tools 
to better inform our decisionmaking?
    Dr. Natali. Thank you, Senator. It is good to see you 
again, as well.
    Again--and I would like to focus on the--the analytical 
toolbox that CSO has developed is quite sophisticated, but what 
I think is missing is, again, that integrative tool. So, how 
does it feed back into the policymaking and the programming, as 
well? Because CSO also adds this--you know, this forecasting 
capability or its ability to conduct spatial analysis of where 
conflict is occurring, in realtime data. It is quite useful. 
But, again, how does that get back into the programming, the 
policy decisions, so that--and continuously updating this 
information, as well? That is where I have found I would like 
to, you know, focus on or provide greater support to.
    Senator Kaine. Thank you for that. And one hope that I 
have: Issues dealing with migration are not, I do not think, 
within the CSO side of the State Department, the global 
migration issue; but, if you are going to be looking at 
analytical tools that would predict risk, conflict, challenges, 
the reality of migration patterns is certainly a significant 
one. Tens of millions of people. I think we realize now, 
migration is not an episodic thing, it is permanent condition, 
might be driven by disease, poverty, civil war, weather-related 
droughts, wildfires, catastrophes, water shortages.
    The U.S. alone pulled out of the U.N. Global Compact on 
Migration in December of 2017. The--I think last week, they 
completed, sort of, a framework of best practices for nations 
to try to deal with the new reality, the new reality of 
migration patterns in--as a source of instability. I do not see 
it being good for either the U.S. or the world for the U.S. to 
be the sole nonparticipant in these discussions.
    If you believe, as I do, that migration poses security 
challenges and stability challenges, it would be my hope that 
that would be advocated within the State Department, and that 
there might be a way for the U.S. to rejoin. My understanding 
of the decision is, it was made by the administration. It was 
communicated by the U.N.--the Ambassador to the United Nations, 
but there was some significant disagreement within the State 
Department about whether it would be a good idea for the U.S. 
to pull out of a best-practices dialogue with the nations of 
the world to deal with one of the fundamental stability and 
security challenges we are dealing with now.
    So, I know you will be focusing on that as you use these 
analytical tools, the reality and the security threat that 
migration can pose, but I hope that the U.S. would get back 
into being part of the solution rather than a nonparticipant.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman. Thank you for 
holding the hearing.
    Mr. Bulatao, thank you for coming to my office yesterday. 
We had a good discussion. I wanted to follow up on a couple of 
things.
    We had an unfortunate incident in Cuba, about a year and a 
half ago to start, and some since then, of an unexplained--it 
was first called the ``sonic attack'' or some kind of 
``acoustic attack.'' My understanding is that FBI and others 
have pulled back from that, saying that they cannot be sure 
that it was. In fact, we do not know what it was, how it was, 
who it was, why it was, but still something occurred. And I 
think State Department took what it felt was appropriate action 
to reduce a number of personnel there.
    On May 23rd, Secretary Pompeo talked about an incident that 
happened in China, quote, ``abnormal sensation of sound and 
pressure.'' Medical indications were very similar and, quote, 
``entirely consistent with those experienced by American 
diplomats posted in Havana.'' What has been done in China in 
term--in response to that?
    Mr. Bulatao. Senator, thank you.
    If confirmed, I can commit to you to be extremely 
aggressive in finding the culpability--the who, the how, and 
the what--of these incidents, whether they are in Havana or 
China. As far as I know, in China, it is my understanding the 
Department is working with local officials to try and further 
investigate it. And we have taken the precautions, in terms of 
medical and security with our personnel there, to make sure 
that we mitigate and are doing everything we can to make sure 
that their safety is paramount.
    Senator Flake. All right. If confirmed, if we do not find 
out, if we have no more--additional information as to who, the 
what, the why, the how, will we take the same precautions that 
we have taken in Cuba, in China, in terms of personnel? What 
would be your recommendation?
    Mr. Bulatao. Senator, I think we have to--if I am 
confirmed, I think we have to look at each of those specific to 
the context and the situation that--occurring there. And if we 
feel that same threat or the same conditions exist for our 
workforce, for any U.S. Government workforce, I think we have 
to take very similar precautions. But, I think we need to 
evaluate and investigate that, and make sure we understand what 
exactly the extent and the scope of these incidents that are 
occurring--and take the appropriate precautions.
    Senator Flake. Okay. I think that is exactly right. I think 
that is what you should do. Unfortunately, I believe that the 
policy that you will be going into does not allow for that. The 
policy right now requires that the State Department, if they 
downgrade or make our diplomatic presence an unaccompanied 
post, for example, where spouses and children do not go, then 
that automatically requires that an advisory be issued, in 
terms of the general public and their travel, as has been done 
in Cuba. And it has had--and I think that you would 
acknowledge, and everybody who has traveled to Cuba would, that 
it has had a very detrimental effect, in terms of Americans 
traveling who assist. And our policy in Cuba is to help those 
entrepreneurs and others who have achieved some modicum of 
independence, economic and political, from their government by 
opening up Airbnbs--or bed and breakfasts, private restaurants, 
and others, who now--American groups looking to travel look at 
that travel advisory and think, ``We might have liability 
issues. We cannot do it.'' So, it has diminished travel 
significantly. I know. I have been traveling down there.
    And the problem is, when you look at--as you mentioned, you 
have to look at these things individually. There have been more 
than a million American travelers to Cuba, I think, over the 
past year. There has not been one corroborated case of any 
attack by anybody--or of the nature that it is being discussed, 
on an American traveler. Yet, still, our policy right now--and 
it is not statute, it can be changed--requires that, if you 
have a certain designation for the diplomatic post, then you 
also issue a type of warning. I trust that that is going to be 
looked at, because I do not think that we want--or should 
issue, with regard to China, regardless of what comes out of 
this investigation, an overall blanket advisory for Americans 
to travel to China. It is a big country. Americans can make 
those assessments themselves. But, anyway, what will be your 
commitment when you get there, if you are nominated--or 
confirmed?
    Mr. Bulatao. Senator, first, let me say, having a new 
generation of entrepreneurs in Cuba is a great long-term 
benefit for them understanding how freedom and opportunity and 
the rule of law works. And that will be great to see that 
evolve to--with our neighbor to the south.
    Having said that, I know the Secretary committed, and 
committed to you, to look at that policy specifically and 
evaluate if it makes sense to continue to issue the kind of 
travel advisories that have been produced by State. And I am 
aware that there is ongoing active dialogue within the 
Department to produce those set of recommendations that will 
look at that criteria and figure out if that policy makes sense 
to change.
    And you are correct that is within the policy at the State 
Department, not law. And if I am confirmed, I am committed to 
sitting down with my team, the head of diplomatic security, our 
bureau chiefs, and to figure out what should be the right way 
forward, balancing all those interests that you have outlined.
    Senator Flake. Well, the commitment made to me that--is 
that this would not take months, it would take a matter of a 
couple of weeks to make this assessment. And it is still going 
on, months and months later. So, I think it is a--well past 
time for this assessment to be completed.
    And thank you for your testimony.
    The Chairman. Thank you. Thank you very much for pressing 
that issue. And I--have you gotten any written responses at 
all, relative to this policy? I know you have been pushing for 
it for some time.
    Senator Flake. Back in May, I did, that something was being 
reviewed. This was back in May, when I was told, at that time, 
verbal assurances that it would not be months, it would be a 
matter of a couple of weeks. Now I am told there was a group 
going to go to Cuba to do an additional review, but that has 
been delayed. I do not know how in the world we can move 
forward with additional nominations or confirmations until that 
is done and completed and we have a recommendation.
    The Chairman. What I think I hear being said--and I know we 
have people from the State Department in the audience, and some 
tuning in--is--my guess is, before these noms will be confirmed 
on the floor, you want an answer.
    Senator Flake. That is correct.
    Mr. Bulatao. And, Senator, it is my understanding that that 
trip, with the right leadership, is scheduled to occur shortly. 
And I am--if I am confirmed, I am committed to----
    The Chairman. Yeah.
    Mr. Bulatao.--to taking this question for the record and 
getting back to you on, kind of, where we are on those 
recommendations, and if they are under review, and how we are 
thinking about that. [Information follows:]
    The Chairman. But, I think, you know, people should be 
listening to what is being said here, and it is unfortunate 
that we get in a place where leverage has to be--occur. You are 
obviously an outstanding choice for this position, but I think 
the other people in the State Department listening should take 
note that I think what is being said is, in spite of your 
tremendous credentials, this is an unanswered request that 
needs to be answered prior to you advancing. And I would say, 
on the stabilization funds that the White House is holding up, 
the same would be the case for our other nominee. So, it 
appears to be stuck, specifically with the President, with no 
response whatsoever as to why it is being held up. And I would 
just make notice that that needs to be fixed before these 
advance.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman. 
``Bullatows''--am I pronouncing that right, sir? ``Bullatayo''?
    Mr. Bulatao. ``Bullatow.''
    Senator Booker. ``Bullatayo.''
    Mr. Bulatao. ``Bullatow.''
    Senator Booker. ``Bullatow.'' Thank you, sir. And it is 
``Booker,'' by the way. ``Booker,'' you pronounce it. 
[Laughter.]
    Senator Booker. So, I have a lot of concerns, especially as 
I travel, on the lack of diversity within the State Department. 
And the numbers are kind of stunning. Are you aware of the 
numbers of diversity within the State Department as a whole?
    Mr. Bulatao. Senator, I have had a--seen a brief highlight 
of what those numbers look like. If confirmed, I am committed 
to having a diverse and inclusive State Department. We should 
be leading that effort amongst U.S. Government. We are lagging 
that effort now. And we have to make sure we weave diversity 
into the whole lifecycle of our talent, whether that is from 
the recruiting, whether we look at promotions, whether we look 
at the training we provide. Foreign policy excellence requires 
breadth and depth of perspective. And you get that perspective 
by having diversity of background, diversity of ethnicity, 
diversity of thought, diversity of experience. And I look 
forward to working with the team to make the progress that we 
need to on that front.
    Senator Booker. I am really grateful to hear that. 
Diversity is not just about having a rainbow of people and 
different shades of melanin. It actually contributes 
substantially to the mission of the State Department, correct?
    Mr. Bulatao. I mean, diversity is not my mission, it is 
everybody's mission at the State Department. And having that 
diversity of thought usually allows us to make better insights, 
better decisions, and better perspectives on the challenges and 
the complexity that we face.
    Senator Booker. I really appreciate that. And in study 
after study, business studies, business teams do better when 
they are diverse teams. And that is really important.
    I had a good give-and-take with our Secretary of State, in 
his confirmation hearings, about a lot of his rhetoric, 
particularly towards Muslim Americans and gay and lesbian 
Americans. And my concern was that it is hard to have a leader, 
sometimes, who has said openly, ``I will do whatever I can to 
end the ability for people to marry that are same-sex 
couples,'' and some of his rhetoric on Muslim Americans. And 
when I am out in the field and talking to people, I often ask 
folks, when I am in different countries, about the diversity, 
and hear very significant concerns about the lack of diversity, 
some of which you have expressed, understanding the difference 
it makes. Especially when you are abroad, you want the face of 
America really to reflect America.
    But, I just--I am concerned now as I talk to folks about 
pipelines coming into the State Department, that we still keep 
robust pipelines from religious diversities, racial 
diversities, as well as straight and LGBTQ Americans. Can you 
just give me some assurances that you are focused on how do you 
create robust pipelines, especially leading up into senior 
leadership positions in the State Department, which is even 
woefully less diverse?
    Mr. Bulatao. Well, thank you, Senator.
    As you know, this diversity question is a question that 
takes time, because you have got to start with the hiring and 
getting that pipeline right from the beginning. I am very 
excited that our Rangel and our Pickering scholarships and 
fellowships are back on track, and that, when I look at, again, 
the snapshot that I saw from a recruiting and hiring within our 
Foreign Service and Civil Service, that the pipeline looks 
good. There is always more opportunity we can do. We cannot lay 
down on this. We have got to keep a very vigilant focus on it. 
And I look forward, if confirmed, to making sure that we are 
doing that.
    Senator Booker. I appreciate that. If you look at the 
private sector, I hope you will look at some ideas from there, 
not only in pipeline-creating, but also in mentoring, to help 
people make career paths up into the higher ranks and echelons. 
But, I appreciate that response.
    Ms. Natali, thank you very much. It is an honor to be able 
to sit with you.
    I have a concern that I have expressed to every rank of--
within the State Department about the fact that I travel 
around, and I see us dialing up military engagement, which is 
justified, in many cases, but dialing down the kind of things 
we are doing to--for stabilization efforts, whether--what I saw 
in Lebanon was stunning to me. Again, our partnership with the 
LAF is incredibly essential. But, what they are dealing with, 
in terms of refugee and the refugee crisis there, could be a 
hotbed for radicalization. The same thing with southern Turkey. 
When I have my own--we have our own members of the State 
Department bemoaning to me how we are ratcheting down our 
investments in areas that, ultimately, in the future, cause us 
severe crises, in terms of a radicalization.
    I look at the budget priorities coming from this 
administration, and it is stunning. I hear, from the highest 
ranks--even our Secretary of Defense has said that, ``If you 
cut the State Department, I am going to have--you better buy me 
more bullets.'' And I am wondering just what you think in--your 
perspective is, and how are you going to meet what we see is an 
increasingly complicated world, as my colleague said, from 
greater internally displaced people, greater refugees? It just 
seems like a time that we are going in the wrong direction and 
causing us a situation where we are going to have to pay for it 
in the longrun through continued crises.
    Dr. Natali. Thank you, Senator.
    I agree with you that, if we do not embed--I would even 
start with--military planning should have a stabilization from 
the beginning so that, when you finish or you are nearing the 
end of kinetic actions, that we are starting with the 
stabilization component of it. If we do not, as you indicated, 
we will be there again, so that I would, at least at minimum, 
have our people on the ground, but also what I would emphasize 
is, where we can have local partners, and where we can enable 
those legitimate local authorities on the ground to assume some 
of the security components, whether that is law enforcement, 
whether that is developing their own security components, 
services, governance, that is the part of it that has--it has 
to be part of the component after military, or we just will be 
back and doing what we are doing again and again. So, I agree 
with you. And again, if confirmed, I am committed to working on 
this with--this issue with you.
    Senator Booker. Well, I wish we could talk more. My time is 
expired. The CSO is designed to be a civilian-led policy group. 
If your resources are being cut, and that resources at the 
State Department be cut from our diplomatic corps towards 
stabilization efforts, I really do worry about the long-term 
impact.
    But, I am going to tread upon the generosity of the 
Chairman and just ask this last question. I know you love the 
United States of America, but I hope that you love New Jersey 
the most. Is that true?
    Dr. Natali. I absolutely love New Jersey the most.
    Senator Booker. Thank you very much. [Laughter.]
    Dr. Natali. And the United States.
    Senator Booker. Yes. [Laughter.]
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And thank my colleague from New Jersey for establishing 
that, and the fact that New Jersey is in the United States, so 
we--it is--there is no difference between loving one and loving 
the other. So.
    Let me just--since the Chairman raised the concern about 
moving nominations ahead despite--or in the face of not having 
some responses, there is a series of responses. I am ready to 
lift my hold on the Assistant Secretary for the Western 
Hemisphere, but I said that we need some responses. We need 
some responses on the Cuba sonic attack briefing that I have 
asked for. We need some responses on the Cuba PAHO doctors, 
Cuban doctors that are sent abroad, and basically, it is almost 
forced labor. They get sent abroad to places like Venezuela. 
They send their salaries back, largely, should be a 
consideration in our TIP report, that somehow incomprehensibly 
keeps them at a standard they should not.
    So, you know, one would hope that you could get these 
responses without having to use the, quote/unquote, 
``leverage'' of holding up a nominee, regardless of who that 
nominee is. And so, it is my hope that we can get to a point 
where there is a flow--in a reasonable time but, nonetheless, a 
flow--of getting answers to these questions. So, I will add 
those as part of the concerns that members of this committee 
have.
    And I just want to add one other question--one other point 
to my colleague, on diversity, which is something I have 
pursued for 26 years, and you and I discuss. You know, if you 
recruit only at certain institutions that are known for foreign 
policy, you are going to ultimately have a very small pool. If 
you recruit from a broader universe, where there are more 
diverse students--you know, in New Jersey, Seton Hall 
University, for example, has a great school of foreign 
diplomacy. Others do, as well. But, they do not largely recruit 
there. So, that is just one of many examples across the 
country. We always go to some of those institutions--fine 
institutions right here in the Nation capital and vicinity, but 
that gives you a small universe.
    And the second thing is the oral examination. You know, I 
asked you, once you are confirmed, to look at the whole process 
of the oral examination, because it is very subjective. I am 
not sure some of the people in the highest offices in our land 
could pass the oral exam that the State Department subjectively 
puts out. And so, looking at how that exam takes place is a way 
that is very often subjectively disqualifying individuals 
because they supposedly cannot orally communicate, is a real 
question that I have had for some time. So, I commend those to 
your attention.
    Let me just finalize with Dr. Natali on one or two other 
things to better understand. Could you discuss, in some detail, 
how you--the bureau that you would lead, Conflict and 
Stabilization, would contribute to supporting democracy and 
advancing human rights, particularly in post-conflict 
societies?
    Dr. Natali. Thank you. Thank you, Senator.
    Before we can get part of the democratization process--and 
by that, in some of these areas, I look at, How do you move 
from authoritarianism to democracies, having certain requisites 
in place, whether that be socioeconomic, whether that be 
security, whether that be political--CSO, as a stabilization 
organization, my understanding, is to set the conditions so 
that organizations such as USAID and those that work on 
construction can effectively conduct their work. So, first is 
to do--conduct--or continue with the work that they do, such as 
identifying where there are trigger points, where there is 
potential areas of conflict, engaging in peace processes so 
that we do not slide back into authoritarianism, and, at the 
same time, work on some of the socioeconomic and governance 
issues, engaging some of the political negotiations on the 
ground so that local administrations that can be decentralized 
and inclusive of all of the groups on the ground. That is where 
I see it is--in some of these areas in detail.
    These states have broken down. They have not broken up, 
they have broken down, so that now targeting, more at a local 
level, administrative capacity, inclusiveness of groups and 
minority groups that have not had a voice before, identifying 
where atrocity is going to be, and calling out people on human 
rights abuses, and holding our partners accountable. We have a 
tendency to sink, in my view, when we go in and we have our 
partners, that we kind of let them get away with a little bit 
too much. That does not mean everything is going to be perfect, 
but I think that we can or--and should do a better job in 
holding our partners accountable, and being frank with them, as 
well. So----
    Senator Menendez. Let us take an--let me give you a real-
life example that is going on right now. Venezuela. Venezuela 
civilians are suffering, they face acute shortages just to stay 
alive, severe shortages of food and medicine, deep political 
crisis, human rights abuses, using security forces to crush 
opposition. In your view, what are some of the ways the United 
States and the international community can help address this 
crisis?
    Dr. Natali. Thank you, Senator.
    First, there is the humanitarian assistance, where we can--
that is working with our diplomatic embassies--and helping 
those individuals that are the victims of this--what is going 
on in Venezuela. I understand that there is a million 
Venezuelans that have left the country, and possibly that will 
double in the next year. Where are those regional neighbors or 
regional actors that can provide support to that?
    Also, taking measures against those who are--government 
officials who are engaging in these human rights abuses--
targeted sanctions, visa restrictions, whatever that we may can 
to hold the perpetrators of these atrocities accountable. And 
then, of course, to continue to work with, at a diplomatic 
level, ways that we can empower the Civil Society 
Organizations. I understand the CSO is providing support to the 
Western Hemispheres Affairs Unit so that they can work with 
those civil activists who are still trying to establish or 
enhance their institutions at a local level.
    Senator Menendez. One last question, if I may, Mr. 
Chairman.
    The bureau transitioned previously from a mission focused 
on helping to drive integrated efforts to prevent, respond to, 
and stabilize crisises to one that is more focused on 
leveraging its analytical capabilities to help other bureaus 
and agencies understand and stabilize conflicts. If you are 
confirmed, is that something that you intend to maintain the 
focus under as? And, if not, how would you recommend altering 
its mission?
    Dr. Natali. Thank you, Senator.
    I am--my understanding--and I am aware of the background of 
CSO, and I have spoken to the previous Assistant Secretary and 
others involved--that there has been some moving back between 
operations and analytical, and lack of clarity on what exactly 
CSO is focusing on. I would see--I see tremendous value in the 
data analytics that CSO has developed. I would, and will, if 
confirmed, more clearly hone in on those data analytics so it 
can be applied. Analytics for the sake of analytics do not get 
us very far. But, if we can apply that into the programming by 
looking at this and saying, ``We understand, in real, live 
time, what is happening here in eastern Ukraine, and we should 
now develop programs or CVE programs that reflect this,'' and 
then feed this into, also, policy recommendations.
    But, throughout CSO would be--it is very important that CSO 
works integrally with regional bureaus as well as those other 
relevant organizations.
    Senator Menendez. Well, thank you.
    Dr. Natali. Thank you, Senator.
    Senator Menendez. Thank you both.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just a couple of questions, in closing. I know that our 
staff has met extensively with both of you, and had numbers of 
questions. Just to highlight a couple of--Mr. Bulatao, the 2017 
State Department Authorization Act created a pilot program for 
lateral entry into the Foreign Service so that people who are 
distinguished--who have distinguished themselves in their 
careers and done exemplary things could move in at a--as a 
Foreign Service Officer, not unlike what you are doing here. I 
just would like to have your commitment and a--I know you will 
give it, but I want to highlight in this public meeting that 
you all will pursue this pilot program so that we can continue 
to enhance the talent that we have at the State Department.
    Mr. Bulatao. Senator, if confirmed, I support that pilot 
program. I think we need to look at where we can get talent, 
and grow that talent within the Department.
    The Chairman. Yeah.
    There is also a lot of discussion--you mentioned it in your 
opening comments--about some of the building of embassies 
around the country. And, on one hand, you know, when we travel, 
we see these, you know, fantastically new embassies that are 
built a long way away from the populations that we are dealing 
with. And that may be appropriate way for us to go forward. I 
am not--but, I would just ask you to look at that and make sure 
that the decision we made years ago to build in that capacity 
is still the sound route to go. And, obviously, the most 
preeminent issue for us is making sure that our State 
Department employees are safe. And we understand that.
    But, secondly, looking at the possibility of 
standardization. It seems that, with all the cost overruns that 
are taking place, there--it is like we begin from the very 
beginning each time, and for--to look at the ability to 
standardize, as I know you had to do in your business to make 
it successful, if you all would look at ways of doing that, I 
would appreciate it.
    Mr. Bulatao. Senator, if confirmed, I commit to looking at 
that and making that a priority. I think we can do a lot 
better, in terms of how we are looking at the cost and the 
designs, and making sure that we are looking at keeping it 
simple, keeping it basic, making sure we have those things in 
our overseas buildings.
    The Chairman. Well, I think both of you, as has been seen 
today, are exceptionally qualified for these jobs, and we thank 
you for your willingness to do it. I think that both of you, 
both in the area that really needs a lot of work--in 
stabilization, I think you are going to have the ability to 
reshape that in the appropriate way. And, Brian, just from the 
standpoint of your relationship in past, I cannot imagine, if I 
am Secretary Pompeo, having someone better than you.
    We will leave the record open until the close of business 
tomorrow.
    I do want to say, though, in closing, you saw an exchange 
here that I helped generate and I am glad you saw. Our 
relationship with the Department is not what it ought to be. 
The leveraging takes base both ways, unfortunately. And it is a 
relationship that needs to change. I think Secretary Pompeo has 
an opportunity, if others do not impede him, to be a historic 
figure. I really do. And I want to support his efforts. I think 
he is eminently qualified. But, our relationship with the 
Department right now is not good. And for us to have to press 
and leverage, maybe hold up two highly--immensely qualified 
nominees just to get simple responses is abhorrent. And I want 
the leveraging to stop. And I want this State Department to 
respond to the elected officials here when they have requests. 
And so, I hope a lot of this is going to clean up really 
rapidly, because both of you are needed in the Department. But, 
I hope you will send that message back.
    And having--you know, having to negotiate to get witnesses 
up here, when--what Senator Menendez said is true, we have no 
idea--as a matter of fact, notices are being sent out to the 
intelligence community to not meet with us--not meet with us--
over these issues, because they want to have the opportunity to 
talk with us first, and yet they will not come up here.
    So, just understand what we are saying. If you are 
confirmed, I hope you will help correct that. But, I think all 
of us here are really tired of being leveraged. And I think you 
are going to see some drastic actions take place if it does not 
change.
    With that, the meeting is adjourned. [Whereupon, at 11:25 
a.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

  Copy of a Letter Submitted for the Record by Senator Jeanne Shaheen

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



     Responses to Additional Questions for the Record Submitted to 
                  Brian Bulatao by Senator Bob Corker

    Question 1. The State Department's capital construction project 
list for 2018 contains mostly projects that utilize custom (as opposed 
to standard) designs despite using a design-build delivery, including 
the Hermosillo NCC, the Nassau NEC, the Nogales NCC, and the Podgorica 
NEC. It is not clear whether these projects are holdovers from the 
``Excellence'' era or whether they are indicative of OBO's current 
approach to designing NECs and NCCs. Will you commit to looking into 
these projects and why they did not utilize a more standard design?

    Answer. Yes. If confirmed, I commit to reviewing the Department's 
construction projects and evaluating the current approach to designing 
NECs and NCCs. If confirmed, it will be a priority of mine to find ways 
to improve how the Department balances cost and design, keeping 
projects on time and on budget.

    Question 2. The ``listening tour'' commissioned under Secretary 
Tillerson found that lengthening Foreign Service Officer tours would 
make FSOs more effective and save money. Is this an idea you plan on 
pursuing?

    Answer. Yes. I understand that the Department has formalized a 
Department-wide policy and process for determining tour of duty (TOD) 
worldwide. I understand that regional bureaus have reviewed TOD at 
their posts and identified a number of posts at which TOD is being 
extended from two to three years for the next assignment cycle. If 
confirmed, I will ensure that the Director General will work with 
bureaus to review TOD on a regular basis, at least every four years, 
and ensure that bureaus will have a consistent process for requesting 
changes in TOD at their posts as circumstances warrant.

    Question 3. Embassy Paris recommended closing our American Presence 
Post in Toulouse, France in January of 2017. All American Foreign 
Service officers have been reassigned from the post, and no American 
consular services are being provided, yet we have continued to lease 
and guard this post that is empty of Americans. My understanding is 
that the lease on this building automatically renews for another year 
at the end of August or beginning of September. Will you commit to 
inform my office as to why the post has not been closed?

    Answer. I understand that the Department plans to formally notify 
Congress of its intent to close Toulouse to meet the requirements of 
Section 7081 of the FY18 Appropriations Act. Following the 
Congressional Notification process, the Department will provide the 
landlord with the required six months advance notice to terminate the 
lease. If confirmed, I commit to following through on making a decision 
and notifying Congress accordingly.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Brian Bulatao by Senator Robert Menendez

    Question 1. Do you agree with the President that the United States 
is to blame for the current state of U.S.-Russia relations?

    Answer. As the Department has noted, although the United States 
seeks an improved relationship with Russia, achieving that will require 
Russia to demonstrate that it is prepared to take concrete actions to 
address our concerns, including interfering in U.S. domestic matters. 
If confirmed, I will continue to support the Department in holding 
Russia responsible for its malign activities.

    Question 2. Do you believe it is subversive for the President of 
the United States to place more credence in the word of a brutal 
dictator with a history of seeking to undermine the United States, than 
in the men and women of the agency in which you currently serve?

    Answer. I have full confidence in U.S. intelligence agencies, as 
does Secretary Pompeo, and agree that Russia meddled in the 2016 
election. The administration has been tough in its efforts to protect 
the United States from Russian aggression, and if confirmed, I will 
continue to support the Department in holding Russia responsible for 
its malign activities.

    Question 3. Do you believe Russia poses an ongoing threat to our 
election system and democracy?

    Answer. Yes. The January 2017 intelligence community assessment 
found that Russia sought to influence the U.S. election and undermine 
faith in our democratic process. If confirmed, I will support Secretary 
Pompeo in his endeavors to press Russian officials against further 
intrusion in the democratic processes of the United States.

    Question 4. How would you handle cases of targeting of career civil 
servants by political appointees? Do you commit to ensuring the 
Department is free from political retaliation?

    Answer. Career civil servants and Foreign Service employees are 
protected under law from being treated differently due to their real or 
perceived political affiliation. I am committed to ensuring the 
Department adheres to the merit systems principles in its recruitment 
and employment practices. If confirmed, I will continue to ensure such 
prohibited personnel actions are not tolerated at the State Department.

    Question 5. Do you believe political appointees who might have been 
involved in retaliating against officers based on perceived political 
affiliation, work for previous administrations, or perceived national 
origin, should be working for the State Department?

    Answer. I understand that the Department has referred allegations 
of political reprisal against its career employees to the Department's 
Office of the Inspector General and the U.S. Office of Special Counsel. 
I understand that the Department is fully cooperating with those 
investigations and will take the appropriate action, including 
termination if warranted, following the conclusions of those 
investigations.

    Question 6. What will you do to communicate to the offices within 
your purview that any such targeting or retaliation is unacceptable, 
and how will you ensure that inappropriate targeting or retaliation 
does not occur?

    Answer. If confirmed, I will ensure the Department meets its 
statutory obligations to make employees aware of their rights and 
remedies relating to prohibited personnel practices, including the 
prohibition on retaliation on account of their real or perceived 
political affiliation. Similarly, I will make supervisors aware of 
their responsibilities to support employees' rights and remedies 
relating to prohibited personnel practices, and the consequences of 
engaging in targeting or retaliation.

    Question 7. Do you believe there should be a political or national 
origin test for career civil or Foreign Service hires?

    Answer. No. Federal law makes clear that personnel actions, 
including appointments, with respect to career civil and Foreign 
Service members shall be made in accordance with merit principles and 
free from discrimination, including on the bases of national origin and 
political affiliation.

    Question 8. Do you believe American employees of the U.N. should be 
subject to vetting based on their political views?

    Answer. No. Personnel actions should be made in accordance with 
merit principles and free from discrimination, including on the basis 
of real or perceived political affiliation.

    Question 9. How will you assure the Department is fully staffed, 
and that vacancies don't hamper the Department's work?

    Answer. If confirmed, I will seek to fill vacancies and pursue 
creative ways to staff the Department to meet today's mission and be 
well positioned to meet the challenges of the future. This will include 
hiring the full range of expertise, from our diplomats and subject-
matter experts, to our specialists in the field like medical services 
and facilities management, to our security personnel. Hiring the best 
of the best with diverse backgrounds and experiences is critical to 
achieving our global mission and will be a top priority for me.

    Question 10. How do you compensate for the loss of expertise with 
the exodus of senior level officials?

    Answer. It is my understanding that the Department has a solid 
cadre of expertise in its Foreign and Civil Service ranks, enabling 
officers to fill key positions, albeit in an acting capacity in some 
instances.

    Question 11. There has been an exodus of experienced career Civil 
Service employees and Foreign Service officers over the last year and a 
half. What will you do to retain the Department's best and brightest?

    Answer. If confirmed, I will ensure that we have developmental and 
training opportunities for all of our Civil Service and Foreign Service 
employees so that the best and brightest may advance to increasingly 
greater responsibilities. I will also review retention data and federal 
surveys in order to identify areas where we can continue to improve the 
Department's programs, keeping our employees engaged, and our agency as 
one of the top places to work in the federal government.

    Question 12. Now that the hiring freeze has been lifted, will you 
seek to speed up hiring to restore the Department to, at a minimum, 
December 2017 staff levels?

    Answer. It is my understanding that the Secretary officially lifted 
the hiring freeze on Foreign Service and Civil Service employment on 
May 15, which ended the eight percent workforce reduction plan 
previously in place, and authorized hiring to sustain December 31, 2017 
staffing levels, as provided by Congress in the Consolidated 
Appropriations Act of 2018--Joint Explanatory Statement (the Act).If 
confirmed, I will adhere to the guidance already given by the Secretary 
to ensure that the Department will be able to meet these employment 
goals as quickly as possible. This includes restoring Foreign Service 
intake to FY 2016 levels, and allowing bureaus to hire in advance of 
anticipated attrition and converting Pathways program participants.

    Question 13. Do you commit to keeping Congress informed on a 
regular basis about the progress it is making on meeting its staffing 
goals?

    Answer. It is my understanding the Department provides a report on 
staffing for all categories of employment every 60 days to key 
Congressional committees, and that senior members of the M family 
provide periodic briefings to committee staff members regarding 
staffing plans. If confirmed, I plan to consult and engage frequently 
with all of our oversight committees. I commit to providing regular 
reports on progress towards the staffing targets the Department has set 
in accordance with Congressional direction provided in our FY18 
appropriation.

    Question 14. What will you do to improve the Department's 
diversity, particularly in the Foreign Service?

    Answer. If confirmed, I'm committed to having a diverse and 
inclusive State Department. If the United States is going to continue 
to have the best diplomatic service in the world, we have to make sure 
we continue to weave diversity into the whole lifecycle of our talent, 
whether that's through recruiting, promotions, or the training we 
provide. If confirmed, I look forward to working with the team to 
continue to build upon the significant progress the Department has made 
over the last several years to ensure that its workforce reflects the 
diversity and talent of America.

    Question 15. What will you do to address any claims of sexual 
harassment or hostile work environment within the Department? Do you 
commit to ensuring the Department's policies are clearly communicated 
and that employees know how to report any harassment complaints?

    Answer. I understand that any claims of sexual harassment or 
hostile work environment are addressed through the Department's 
internal investigations program, which is managed by the Office of 
Civil Rights. If confirmed, I will continue to support and strengthen 
established measures that hold employees who engage in such behavior 
accountable, as well as ensure that all employees and family members 
understand the available reporting mechanisms. I will work to ensure 
that every team member is treated equally and with dignity and respect 
and ensure that the Department policies continue to be clearly 
communicated and conveyed in mandatory employee training courses, 
posted online, and reaffirmed by senior leadership.

    Question 16. If confirmed, will you commit to reviewing the 
staffing levels in the Office of the Global AIDS Coordinator and 
briefing Congress on your plan to address what appears to be a 40 
percent vacancy rate?

    Answer. Yes, I commit to reviewing the staffing levels in the 
Office of the Global AIDS Coordinator and briefing Congress on my plan 
to address this critical vacancy rate.

    Question 17. According to a recent organizational chart showing 
leadership position in the Africa Bureau, all of the Deputy Assistant 
Secretary of State (DAS) positions are filled in an acting capacity, as 
is the Principal Deputy Assistant Secretary (PDAS) position. The 
current Acting Assistant Secretary of State and PDAS have or will soon 
be nominated to serve overseas. What specifics steps will you take, if 
confirmed, to ensure that DAS and Office Director positions within the 
Africa bureau are filled within a reasonable time period?

    Answer. There are a number of vacancies in State Department 
leadership positions. If confirmed, I will support Secretary Pompeo's 
commitment to get these and other vacancies filled, so the team can be 
in place to meet our core mission requirements. I understand the Bureau 
of African Affairs (AF) is working with the Bureau of Human Resources 
on these particular positions.
    The Assistant Secretary for AF, Tibor Nagy, will assume his post on 
July 23 and one of his first actions will be to interview candidates 
for Principal Deputy Assistant Secretary. The same momentum will follow 
for the vacant DAS and Office Director positions. If confirmed, I will 
support the effort to fill these vacancies.

    Question 18. What is your view on the administration's proposed 
cuts to the State Department FY18 and FY19 budgets?

    Answer. I support the President's priorities to defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer. 
While the administration views the State Department and USAID's roles 
as critical to national security, I understand the administration is 
committed to restraining overall non-defense discretionary spending, 
including for the State Department and USAID.
    As I mentioned in my testimony, if confirmed, I will support 
Secretary Pompeo in seeking funding that serves national interests, and 
will implement the appropriation by Congress consistent with the law. 
If confirmed, I will advocate for the resources that the State 
Department needs, and will look forward to continuing discussions with 
Congress on funding for our diplomacy and foreign assistance programs, 
including for FY 2019.

    Question 19. What is your view on the administration's proposed 
cuts to the foreign assistance budget?

    Answer. While the administration views the State Department and 
USAID's foreign assistance programs as critical to national security, I 
understand the administration is committed to restraining overall non-
defense discretionary spending, including for the State Department and 
USAID. If confirmed, I will work to support the most effective use of 
all funds appropriated by Congress to the State Department.

    Question 20. If confirmed, what criteria will you use as you 
consider the budgetary needs of the Department?

    Answer. As I mentioned in my testimony, if confirmed, I look 
forward to working with each bureau across the Department to ensure 
alignment of available resources with strategic priorities, and to 
advocate for the budget to address potential gaps. I am committed to 
putting in place the appropriate oversight and metrics to ensure the 
Department meets its obligation to use taxpayer dollars wisely and 
effectively. I will support Secretary Pompeo in requesting funding that 
serves national interests.

    Question 21. What is the status of the current reorganization? Will 
the FY20 budget proposal reflect your reorganization plan? How?

    Answer. I understand the Government-wide reorganization plan 
recently released by the White House and OMB includes several proposals 
related to the Department of State and USAID to enhance the 
effectiveness of our diplomacy and programs, including improving 
information technology, strengthening workforce-readiness and 
performance-management, restructuring USAID, and optimizing 
humanitarian assistance.
    If confirmed, I will work with the appropriate Department bureaus 
to continue developing details for inclusion in the President's FY 2020 
budget early next year.

    Question 22. What are your views on past reorganization efforts?

    Answer. I have been briefed on certain aspects of the Impact 
Initiative but have not had the opportunity to review its various 
elements in depth. If confirmed, I look forward to learning more about 
the Initiative and its progress to date.

    Question 23. How do you plan to undo the damage--particularly on 
morale--created by these efforts? What are your views on the hiring 
freeze and the ``strategic hiring plan?

    Answer. The Department's hiring has already increased and the 
results are being realized throughout. If confirmed, I will provide 
regular updates to Department staff on our progress in filling critical 
vacancies and our efforts to recruit and retain the best and the 
brightest. My role will be to remove barriers and fight for resources 
to get our staffing levels up to congressionally mandated levels. 
Communicating our successes will do much to restore confidence and high 
morale.

    Question 24. Do you support moving the Consular Affairs and 
Population, Refugees and Migration bureaus out of the State Department?

    Answer. I do not support moving these programs out of the State 
Department. The functions of the Bureau of Consular Affairs (CA) and 
the Bureau of Population, Refugees, and Migration (PRM) are vital to 
the Department's mission to secure our borders and protect the American 
people.

    Question 25. What are the next steps for the State-relevant 
portions of the overall OMB Federal Government reorganization effort?

    Answer. I understand the Government-wide reorganization plan 
recently released by the White House and OMB includes several proposals 
related to the Department of State and USAID to enhance the 
effectiveness of our diplomacy and programs, including improving 
information technology, strengthening workforce-readiness and 
performance-management, restructuring USAID, and optimizing 
humanitarian assistance.
    If confirmed, I will work with the appropriate Department bureaus 
to continue developing this proposal that is expected to be released 
with the President's FY 2020 budget early next year.

    Question 26. How are you planning to seek additional input 
throughout the reorganization/reform process, including from Congress 
and the stakeholder community?

    Answer. If confirmed, I will assess the state and full scope of the 
Impact Initiative and make a determination quickly about how to 
proceed, in consultation with, among others, the members of the Senate 
Committee on Foreign Relations and the Department's Foreign Service and 
Civil Service officers.

    Question 27. Will you commit to working with this committee to 
ensure sustainable reforms to the State Department and our foreign 
assistance agencies?

    Answer. If confirmed, I will support the Secretary in his efforts 
to ensure that foreign assistance is utilized as effectively as 
possible to meet our foreign policy and national security goals. If the 
Secretary determines reforms are needed, I will work hard to support 
those efforts.

    Question 28. If Congress provides the resources, will you carry out 
the congressional mandate and intent--using the funds that we 
appropriate--for the purposes for which those funds are intended?

    Answer. If confirmed, I will ensure that the Department and USAID 
will work with Congress and OMB to follow all applicable laws, 
including the Impoundment Control Act, to obligate funds appropriated 
by Congress.

    Question 29. Regardless of the mechanism that the executive branch 
chooses, if the President wants to rescind or cancel funds that 
Congress has previously appropriated and the President has signed into 
law, Congress still must agree to cancel out or rescind those funds.

   Is it your understanding that if Congress does not agree or act in 
        some way to rescind or cancel funds, the executive branch 
        agency must spend the appropriated funds for their original 
        purpose?

    Answer. Yes. If confirmed, if the Congress does not act to rescind 
or cancel funds, I will ensure that the Department and USAID will take 
appropriate measures to obligate funds appropriated by Congress 
consistent with applicable laws, including the Impoundment Control Act.

    Question 30. Should the President choose to seek to rescind or 
cancel funds that Congress has previously appropriated, do you commit 
to communicate any such request to this committee and providing a 
briefing regarding the rationale for such a request?

    Answer. Yes. I commit to keeping the Congress informed about any 
such proposals should they be transmitted by the President to Congress.

    Question 31. What are your views on whether or not it makes sense 
to fold USAID into the Department of State?

    Answer. To my knowledge, no such merger proposal has been submitted 
for Secretary Pompeo's consideration or for consultation with Congress. 
As the lead U.S. Government agency for international development and 
disaster assistance, USAID plays a fundamental role in supporting 
American foreign policy. If confirmed, I look forward to working with 
Administrator Green and USAID's exceptional staff.

    Question 32. Given that these are different undertakings, as an 
organizational and management issue, how would you reconcile them in 
one institution and expect success?

    Answer. To my knowledge, no such merger proposal has been submitted 
for Secretary Pompeo's consideration or for consultation with Congress. 
As the lead U.S. Government agency for international development and 
disaster assistance, USAID plays a fundamental role in supporting 
American foreign policy. If confirmed, I look forward to working with 
Administrator Green and USAID's exceptional staff.

    Question 33. Are proposals to merge USAID into the State Department 
or reduce the agency's autonomy still under consideration by the 
Department?

    Answer. To my knowledge, no such merger proposal has been submitted 
for Secretary Pompeo's consideration or for consultation with Congress.

    Question 34. How will you work to address employee concerns 
regarding the future of USAID?

    Answer. Secretary Pompeo has expressed clear support for USAID in 
his recent testimony on the State and USAID budget. If confirmed, I 
look forward to helping to advance the relationship between State and 
USAID. For example, holding a town hall discussion is one way to engage 
directly with employees and to answer their questions and concerns.

    Question 35. How do you plan on committing to the retention of 
diverse foreign and civil service employees? How do you plan to tackle 
the lack of diversity in our Foreign and Civil Service at the State 
Department, if confirmed?

    Answer. I understand that the Department prioritizes its diversity 
and inclusion efforts by funding hiring and recruitment programs, 
mentoring initiatives, and veterans outreach. In addition to the 
Pickering and Rangel Fellowships, funded programs include, for example, 
the U.S. Foreign Service Internship program, Minority Summer Internship 
Opportunities, Don Bosco High School Corporate Work Study Program, the 
IT Fellows Program, the Workforce Recruitment Program for employees 
with disabilities, and the International Career Advancement Program.
    If confirmed, I will be committed to ensuring the Department's 
workforce reflects the diversity of America from the entry levels 
through our senior ranks. I believe the Department must be a leader in 
promoting diversity and inclusion, and I look forward to working with 
Department staff, if confirmed, to build on current Department efforts 
to broaden our avenues of recruitment, retain the diverse workforce we 
have recruited, and to utilize the talents of all employees.
Special Needs Education Allowances (SNEA):

    Question 36. There have been reports this year of parents of 
children with disabilities having their Special Needs Education 
Allowances (SNEA) cut. Those funds are critical for those children to 
be able to reside abroad with Foreign Service parents and get the 
support they need in line with Americans with Disabilities Act (ADA) 
standards. We have not received a satisfactory explanation as to why 
the Department changed its position on providing this funding. Nor are 
we satisfied the Department is committed to ensuring these children 
have the support they need. The problem continues to this day, and 
we've heard from a number of parents just this month who have had their 
funding cut with no notice or ability to plan for remaining at post 
with their children.

   How will you approach this issue and will you commit to ensuring 
        these families and children are treated fairly by the 
        Department, have the resources they need, and that State 
        complies with the ADA?

    Answer. If confirmed, I am committed to examining how the Special 
Needs Education Allowance is applied to support our officers' family 
members and to improving that process where possible. I fully support 
implementing our programs consistent with applicable law.

    Question 37. What mechanism should be in place to ensure that our 
Chiefs of Mission can be confident that the information that the 
military is presenting in circumstances similar to those which existed 
in Niger is consistent with information being circulated among the 
relevant military chain of command?

    Answer. Effective communication and coordination between U.S. 
Chiefs of Mission and military commanders is vital to our national 
security. If confirmed, I will review existing mechanisms for 
communication and coordination and assess whether adjustments or 
additional mechanisms are warranted.

    Question 38. What steps will you take, if confirmed, to ensure that 
such a mechanism is put in place?

    Answer. If confirmed, I will review existing mechanisms for 
communication and coordination between U.S. Chiefs of Mission and 
military commanders and assess whether adjustments or additional 
mechanisms are warranted. If adjustments or additional mechanisms are 
warranted, I will ensure the Department of State works closely with 
counterparts at the Department of Defense to develop and implement the 
required improvements.

    Question 39. I am interested in your views on managing the 
Department's personnel security needs. As you know, the administration 
proposed very substantial cuts to funds to address Embassy Security 
needs. Do you agree with these proposed cuts?

    Answer. The safety and security of our personnel and American 
citizens overseas is of paramount importance. If confirmed, I intend to 
review the Department of State budget to ensure employees are able to 
carry out their duties in as safe and secure an environment as 
possible. I support Secretary Pompeo's vision of an expeditionary State 
Department and taking risks, and know that protecting the Department's 
personnel is his highest priority. In the current budgetary 
environment, we can approach achieving this vision by evaluating our 
presence overseas.
    Question 40. In addition, there are competing organizations within 
State that have overlapping areas of responsibility. Last year the IG 
recommended de-conflicting Diplomatic Security (DS) and Overseas 
Buildings Operations (OBO) authorities, which were getting in the way 
of providing physical safety for our State personnel. How will you 
implement this IG recommendation?

    Answer. If confirmed, I intend to review the OIG recommendation and 
will direct Diplomatic Security (DS) and Overseas Buildings Operations 
(OBO) to ensure the best possible work environment to ensure physical 
security for our State Department personnel.

    Question 41. The vast majority of GAO's open priority 
recommendations focus on diplomatic and embassy security. A number of 
those have been open for some time. Do you commit to review these 
recommendations and implement them as quickly as possible?

    Answer. Yes. If confirmed, I intend to review the GAO 
recommendations and will direct Diplomatic Security (DS) and Overseas 
Buildings Operations (OBO) to work together to assess how the 
recommendations can be implemented as quickly as possible to ensure the 
safety of Department of State employees around the world.

    Question 42. If confirmed, during your first 30 days, do you commit 
to provide the committee with a written report on the full universe of 
cases--whether confirmed or reported--in which State Department or 
other U.S. Government personnel based either ermanently or on temporary 
assignment overseas, including family members, have reported symptoms 
consistent with the attacks in Cuba and China, including location, 
date, nature of symptoms, and medical disposition?

    Answer. The health and well-being of our personnel is a top 
priority of the Department. At the Secretary's request, the Deputy 
Secretary of State established a task force to analyze and track 
potential cases in a holistic way. The task force works to help improve 
the Department's engagement with Congress on this matter. If confirmed, 
I am committed to supporting the efforts of the Department to better 
understand the nature of these incidents and engaging constructively 
with the committee in a manner consistent with privacy and other 
applicable law.

    Question 43. If confirmed, what steps will you take to protect U.S. 
personnel from similar incidents in Cuba and China, as well as other 
U.S. diplomatic posts around the world? What specific mitigation 
measures would you personally recommend and directed upon assuming the 
post of Under Secretary for Management?

    Answer. If confirmed, I will ensure that these incidents are fully 
investigated, and that every effort is made to attempt to determine the 
cause. In conjunction, I intend to explore and implement all potential 
mitigation measures available in order to provide the best safety and 
security for our personnel possible.

    Question 44. While the attacks against U.S. personnel in Cuba 
occurred in late 2016 and early 2017, the Trump administration waited 
until August 2017 to publicly confirm the attacks against U.S. 
personnel in Cuba and inform Congress. Do you commit to notify Congress 
within 30 days of all new confirmed or reported cases? Do you commit to 
notify Congress before the State Department notifies the media?

    Answer. The health and well-being of our personnel is a top 
priority of the Department. The incidents that occurred in Cuba and 
China are unprecedented, and the investigations are ongoing. If 
confirmed, I am committed to supporting the efforts of the Department 
and the interagency in investigating and mitigating these incidents and 
engaging constructively with the committee in a manner consistent with 
privacy and other applicable law. I understand the Department has 
instituted procedures to ensure notification to Congress in a timely 
manner, and I look forward to reviewing those procedures if confirmed.

    Question 45. Is it your assessment that the Trump administration 
violated U.S. law by waiting more than one year after the earliest 
attacks in Cuba to convene an Accountability Review Board?

    Answer. There is no higher priority than the safety and security of 
our people serving abroad. Accountability Review Boards (ARBs) play a 
critical role in helping the Department of State assess security 
policies and procedures, and identifying ways to strengthen its 
security practices. If confirmed, I commit to looking into the 
Department's process for convening an ARB for Cuba.

    Question 46. Do you intend to convene an Accountability Review 
Board for the incidents that occurred in China as stipulated under U.S. 
law?

    Answer. There is no higher priority than the safety and security of 
our people serving abroad. Accountability Review Boards (ARBs) play a 
critical role in helping the Department of State assess security 
policies and procedures, and identifying ways to strengthen its 
security practices. It is my understanding that it is the 
responsibility of the Secretary to convene an ARB, when required by 
law. If confirmed, I will fully support the Secretary in executing the 
requirements of the law.

    Question 47. What is your assessment of the fact that the State 
Department confirmed the personnel incident in China on May 16, 2018, 
but waited until June 5, 2018--nearly three weeks--before announcing 
the launch of the Health Incidents Response Task Force?

    Answer. I am aware the nature of these incidents is unprecedented 
and unclear, and that the appropriate entities in the Department were 
closely involved in addressing the issue even before the task force 
formed. In my assessment, the Health Incidents Response Task Force was 
a timely mechanism to coordinating these ongoing efforts and facilitate 
information sharing and proposals for addressing the incidents. The 
task force's work has helped improve the Department's engagement with 
Congress on this matter and has involved other agencies in a 
coordinated and effective whole-of-government response.

    Question 48. If confirmed, what diplomatic or other measures do you 
intend to recommend and/or pursue regarding the Government of the 
People's Republic of China? Would you recommend similar to measures 
imposed on Cuba, should there be additional confirmed cases in China?

    Answer. I understand the Department has been in close contact with 
the Chinese Government, and an interagency investigation is ongoing. If 
confirmed, I will ensure that the Department evaluates engagement with 
China should there be additional confirmed cases in China.

    Question 49. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Starting with my career in the Army, including several 
deployments in defense of American ideals, I have been committed to the 
protection and advancement of human rights and democracy. One of the 
reasons I was so proud to return to government service and the Chief 
Operating Officer at CIA and now as the nominee for Under Secretary is 
because I believe in those values and want to strengthen those 
institutions that advance their cause.

    Question 50. Many Foreign Service Officers and Civil Servants at 
the State Department believe working on democracy and human rights 
issues will not enhance their opportunities for further promotion or 
otherwise be appropriately recognized or rewarded by the Department. If 
confirmed, what actions would you take to address this problem?

    Answer. I have not heard these concerns at the Department. My 
experience has been that Foreign Service officers take great pride in 
advancing our country's interests and promoting our values abroad, and 
human rights is one of our most fundamental values. More technically, 
Foreign Service and Civil Service promotions are not based on the 
subject matter of their work but rather on the skills and abilities 
they demonstrate in their job performance. If confirmed, I will work to 
ensure that the best and brightest Foreign Service and Civil Service 
employees are rewarded and recognized.

    Question 51. If confirmed, do you commit to brief committee staff 
within 60 days of assuming office on your plans to conduct a review and 
immediately on conclusion of the findings of your review of existing 
mechanisms for communication and coordination between U.S. Chiefs of 
Mission and military commanders as well as your assessment as to 
whether adjustments or additional mechanisms are warranted?

    Answer. Yes. As I stated previously, if confirmed, I will review 
existing mechanisms for communication and coordination between U.S. 
Chiefs of Mission and military commanders and assess whether 
adjustments or additional mechanisms are warranted. If confirmed, I 
commit to brief committee staff within 60 days of assuming office on my 
plans to conduct this review, and further commit to brief the committee 
on conclusion of the findings of my review and my assessment as to 
whether adjustments or additional mechanisms are warranted. As I stated 
previously, if adjustments or additional mechanisms are warranted, I 
will ensure the Department of State works closely with counterparts at 
the Department of Defense to develop and implement the required 
improvements.

    Question 52. Is the administration's decision to allow Foreign 
Service Officers from both USAID and State to cross-bid for FSO posts 
within either agency a decision that State and USAID personnel have 
expressed support for? What purpose do you believe this serves? Will 
the evaluations and results from this experiment be used to inform 
either current or future studies or proposals to consolidate USAID into 
the State Department?

    Answer. I understand that for more than a decade, State and USAID 
have maintained a personnel exchange codified with a Memorandum of 
Understanding (MOU), called the Crossover Assignment Process. In this 
process, State and USAID advertise assignments (both domestic and 
overseas) that each agency's Foreign Service workforce may be bid on.
    State and USAID recently executed a new MOU that permits the 
exchange of personnel to fill senior level positions for periods of up 
to 12 months to broaden each agency's strategic and leadership 
perspectives on each agency's approach to issues that are facing the 
nation. If confirmed, I will ensure the Bureau of Human Resources leads 
an analysis of these efforts in order to inform future strategic 
objectives.
    As previously stated, to my knowledge, no proposal to consolidate 
USAID into State has been submitted for Secretary Pompeo's 
consideration or for consultation with Congress.

    Question 53. What do you believe is the appropriate role and 
influence the State Department should have over staffing decisions and 
hiring at USAID?

    Answer. I agree with Secretary Pompeo's prior statements that USAID 
is an independent agency and its independence must be respected and 
preserved. If confirmed, I commit to achieving an understanding of the 
laws governing the reporting structure between the Secretary of State 
and the USAID Administrator, including Congressional mandates in the 
annual appropriations laws, as well as past practice with respect to 
this relationship. I also look forward to opening and maintaining a 
regular line of communication with my counterpart at USAID.

    Question 54. Do you commit to ensuring that any employee who 
engages in protected whistleblowing activities, such as by reporting a 
protected disclosure to Congress, the Inspector General, GAO, or other 
relevant federal official does not suffer any adverse consequences?

    Answer. Yes, I commit to ensuring that any employee who engages in 
protected whistleblowing activities does not suffer any adverse 
consequences. Personnel who engaged in protected whistleblowing 
activities perform a critically important service to the Department of 
State and to the public when they disclose fraud, waste, and abuse. I 
am aware that Federal law protects Federal employees against reprisal 
for whistleblowing. I understand that the Department is committed to 
protecting all personnel against reprisal for protected whistleblowing 
activities, and if confirmed, I will be steadfast in supporting that 
commitment.

    Question 55. I remain concerned about State Department employees 
who have expressed a fear of reprisal for expressing their opinions, 
disagreements, or for being associated with the prior administration. I 
am sure you are familiar with the Department's Dissent Channel, which 
allows Foreign Service officers and civil servants to raise concerns 
with senior management about the direction of U.S. foreign policy 
without fear of retribution. I encourage you to take full and 
appropriate advantage of the Dissent Channel, including by staying 
abreast of any Dissent Channel cables that are addressed to you and 
other senior appointees. Do you commit to ensuring that any employee 
who participates in the Dissent Channel remains free from retribution? 
Do you commit to reaffirming your support for the Dissent Channel and 
communicating to employees that it is a valued and important form of 
communication and dissent?

    Answer. I am generally aware of the Department's Dissent Channel 
but have not had the opportunity to explore this tool in depth. As a 
leader, I find listening to those around me, including career officers, 
to be critical to achieving the team's goals and promoting good morale. 
I recognize the need for employees to have a forum for raising concerns 
with senior management about the direction of U.S. foreign policy 
without fear of retribution. If confirmed, I commit to ensuring that 
any employee who participates in the Dissent Channel remains free from 
retribution. Furthermore, in the spirit of promoting an open dialogue, 
I commit to reaffirming my support for the Dissent Channel and 
communicating to employees that it is a valued and important form of 
communication and dissent.

    Question 56. As discussed at your hearing, do you commit to 
disseminating clear guidance across the Department that politicization 
of career Foreign Service and civilian service positions by political 
appointees or any State employee with management responsibilities is 
unacceptable? Further, do you commit to meet with the committee within 
three months of assuming office, if confirmed, to brief the committee 
on the actions you have taken to communicate that guidance, any cases 
of political retaliation or politicization bought to your attention, 
any measures to address harm suffered by Department employees, any 
disciplinary steps taken, as well as your plans to monitor and 
safeguard the Department against inappropriate politicization of 
personnel going forward?

    Answer. Yes. I commit to disseminating guidance and taking other 
appropriate actions regarding political reprisal against any employees. 
As previously stated, I will take the appropriate action upon 
completion of the reviews of the Department's Office of the Inspector 
General (OIG) and the U.S. Office of Special Counsel (OSC), including 
termination if warranted. I look forward to briefing this committee 
within three months of taking office on my steps to communicate that 
guidance, whether any new cases of political retaliation or 
politicization have been brought to my attention, the Department's 
safeguards against politicization, and any disciplinary steps that are 
taken following the review and recommendations by the OIG and OSC.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Brian Bulatao by Senator Johnny Isakson

    Question 1. As you know, former Sec. Tillerson began implementing 
the Impact Initiative in order to modernize certain parts of the 
department. Have you had the chance to review the initiative and its 
implementation to date?

    Answer. I have been briefed on certain aspects of the Impact 
Initiative but have not had the opportunity to review its various 
elements in depth. If confirmed, I look forward to learning more about 
the Initiative and its progress to date.

    Question 2. Do you plan to continue this effort as it currently 
stands?

    Answer. If confirmed, I will assess the state and full scope of the 
Impact Initiative and make a determination quickly about how to 
proceed, in consultation with, among others, the members of the Senate 
Committee on Foreign Relations and the Department's Foreign Service and 
Civil Service personnel. A number of its elements align closely to the 
President's Management Agenda.

    Question 3. Will you expand the scope of the Impact Initiative?

    Answer. I would not want to comment on the possibility of expanding 
the scope of specific reform efforts until I learn more. If confirmed, 
I will focus on strengthening the management of the State Department, 
consistent with the President's Management Agenda, in consultation 
with, among others, the members of the Senate Committee on Foreign 
Relations and the Department's Foreign Service and Civil Service 
personnel.

    Question 4. How will your efforts with the Impact Initiative affect 
the Joint Strategic Plan that Ambassador Green recently announced at 
USAID?

    Answer. The Joint Strategic Plan (JSP) is a joint effort between 
State and USAID that outlines the goals of the two organizations to 
achieve our foreign policy objectives. It is my understanding that 
while the Impact Initiative and JSP are distinct, a number of the 
Impact Initiative projects would support JSP Goal 4 `Ensure 
effectiveness and accountability to the American taxpayer.' Further 
they would also complement aspects of the President's Management Agenda 
that are underway in many agencies, such as IT modernization, improved 
use of data, workforce development, and sharing quality services. If 
confirmed, I look forward to working with Ambassador Green to advance 
our shared management objectives.

    Question 5. If confirmed, will you commit to working with me on 
these efforts?

    Answer. Yes. If confirmed, I look forward to consulting with you 
frequently on foreign policy and management issues facing the State 
Department.

    Question 6. As part of the response to the Benghazi attack in 2012, 
which showed a lack of planning and available State Department 
resources to respond to crises, it is my understanding that State's 
Bureaus of Medical Services and Diplomatic Security now contract 
aircraft that are ready 24 hours a day, 7 days a week. They are able to 
respond in less than 12 hours to respond to crises around the world. 
Over the last few years, these contracted aircraft have been effective 
and efficient: Do you intend to keep these contracted aircraft services 
under the direction of the Bureaus of Medical Services and Diplomatic 
Security, allowing them to be effectively managed and rapidly deployed 
when the need arises?

    Answer. I understand that the Department's Bureau of Medical 
Services manages the contract you referenced, which provides the United 
States with unique biocontainment transport capabilities and combined 
medical and security response options in the aftermath of emergencies 
overseas. If confirmed, I intend to maintain this asset in a manner 
that optimizes efficiency, flexibility, and mission-readiness, 
consistent with the Department's legal authorities and subject to 
evolving operational requirements.

    Question 7. In the wake of the Benghazi attack and the Ebola 
outbreak, it is imperative that we are able to respond quickly to 
imminent threats to U.S. Government personnel: If confirmed, what will 
you do to enhance the State Department's situational awareness, 
particularly in its ability to respond to emergencies?

    Answer. The safety and security of our personnel and American 
citizens overseas is of paramount importance. Effective response 
requires the right people, with the right training and technology, 
leveraging responsive transportation resources, to support rational 
action amidst uncertain facts. If confirmed, I will review the 
Department's current crisis response capabilities and processes to 
ensure we maintain those with proven effectiveness, and improve or 
replace the capabilities and processes as needed.

    Question 8. What types of emergency management technology could the 
State Department utilize to quickly and effectively respond to 
emergencies?

    Answer. I believe effective crisis response starts with planning 
and information sharing that supports decision-making. The reporting 
capability of our global workforce is an asset in ensuring we have 
comprehensive and timely information. The Department, through the 
Bureau of Diplomatic Security, the Bureau of Medical Services, and 
others, in conjunction with technical capabilities provided by the 
Bureau of Information Resource Management, maintains highly specialized 
and unique capabilities with which to respond to emergencies. If 
confirmed, I will review and support those capabilities, with attention 
to their ability to support the mission during all aspects of emergency 
management.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Brian Bulatao by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Starting with my career in the Army, including several 
deployments in defense of American ideals, I have been committed to the 
protection and advancement of human rights and democracy. One of the 
reasons I was so proud to return to government service and the Chief 
Operating Officer at CIA and now as the nominee for Under Secretary for 
Management is because I believe in those values and want to strengthen 
those institutions that advance their cause.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will be committed to a diverse and 
inclusive workforce. The Department must be a leader in promoting 
diversity and inclusion. I understand that to achieve diversity, we 
must focus on the mission, ensuring that our recruitment practices 
embrace all Americans, and demanding that every team member be treated 
equally and with civility and respect.

    Question 3. What steps will you take to ensure each of the 
supervisors across the Department of State are fostering an environment 
that is diverse and inclusive?

    Answer. Excellence in foreign affairs demands broad perspectives, 
both in our understanding of a complex world and in our approach to 
challenges and opportunities. Broad perspectives come from diversity in 
thought, ethnicities, backgrounds, and experiences. Embracing and 
leveraging diversity through an inclusive culture fosters innovation, 
new ideas, and new insights which is at the heart of what we are 
charged to do and is what will drive mission success.
    As Chief Operating Officer of the CIA, my portfolio included the 
Diversity and Inclusion office and our overall strategy and goals in 
this critical area outlined below. If confirmed, I will establish a 
similar approach at the State Department:

        The Diversity and Inclusion Strategy lays out the three key 
        goals below to ensure that every officer is able to bring a 
        full range of views and talents to our mission.

  <diamond> Weaving diversity and inclusion throughout the talent cycle 
        focuses on performance management, talent development, and 
        learning to prepare employees and managers to fully benefit 
        from a diverse and inclusive workplace.
  <diamond> Becoming an employer of choice focuses on enriching our 
        workforce by recruiting in diverse communities across America 
        and cultivating an inclusive culture that encourages 
        collaboration, flexibility, and fairness to create an 
        organization that is a model employer for the full diversity of 
        America's talent.
  <diamond> Increasing diversity of leadership focuses on training 
        current leaders, managers, and supervisors to develop every 
        officer's potential to prepare a diverse bench of future Agency 
        leaders.

    Question 4. What is your view regarding the department's current 
policies addressing sexual harassment and sexual assault? How, if at 
all, would you recommend improving these policies and addressing other 
concerns raised by signatories of the letter, if confirmed?

    Answer. I believe the Department's policies addressing sexual 
harassment and sexual assault are strong. I understand that the 
Department has a zero tolerance stance on any form of workplace 
harassment and mandatory requirements for EEO/Diversity Awareness and 
Anti Sexual Harassment Training, and sensitively and fully investigates 
any reported allegation of sexual assault in a manner that prioritizes 
the safety and dignity of the victim.
    The signatories of the letter came from a variety of agencies, and 
I cannot speak to the policies and procedures of other agencies. If 
confirmed, I will ensure that the State Department's strong policies 
continue to be enforced and that employees continue to receive 
effective training on these topics. Additionally, I will ensure that 
senior leadership convey the important message that all inappropriate 
behavior is unacceptable, and that any individuals, regardless of rank, 
who engage in improper conduct and/or violate these policies are held 
accountable.

    Question 5. Is there a need to improve reporting mechanisms for 
sexual harassment and sexual assault and address concerns that 
reporting such instances will lead to retribution?

    Answer. I understand that the Department has a zero tolerance 
stance on any form of workplace harassment and mandatory requirements 
for EEO/Diversity Awareness and Anti Sexual Harassment Training. If 
confirmed, I will continue to support and strengthen established 
measures that hold employees who engage in such behavior accountable, 
as well as ensure that all employees and family members understand the 
available reporting mechanisms. I will work to ensure that every team 
member is treated equally and with dignity and respect. Reporting 
allegations of sexual harassment or sexual assault should never lead to 
retribution or retaliation, and if confirmed, I will support the 
Department's efforts to hold accountable any individual who engages in 
retribution.
    I take these concerns seriously, and if confirmed, I will support 
continuing these strong efforts to protect employees.

    Question 6. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                  Brian Bulatao by Senator Todd Young

    Question 1. You are nominated to serve as the Undersecretary of 
State for Management. In this position, you would be a key official 
overseeing reform at the Department of State. As I have highlighted 
before, the Government Accountability Office (GAO) maintains a 
database, by Department, of open recommendations that would improve 
efficiency and performance. According to GAO's website, as of July 17, 
the Department of State had 96 open GAO recommendations, including 19 
priority recommendations. That's an improvement from last May (when 
there were 132 open recommendations and 22 open priority 
recommendations). I want to thank Deputy Secretary Sullivan, in 
particular, for that progress. However, there is more work to do. If 
confirmed, do you commit to monitoring these GAO recommendations 
closely, insisting on expeditious implementation of recommendations 
that make sense and ensuring that the Department keeps GAO and Congress 
updated on progress? I am a strong supporter of the International 
Affairs Budget, but I need to be able to tell my constituents that the 
Department of State is acting as the best possible steward of their tax 
dollars.

    Answer. As someone who places a great deal of value on continuously 
striving to improve efficiency and performance, please rest assured 
that if confirmed I am committed to monitoring GAO recommendations 
closely, insisting on expeditious implementation of recommendations 
that make sense, and ensuring that the Department keeps GAO and 
Congress updated on progress.

    Question 2. I appreciated your comments in your prepared statement 
that the ``safety and security of our personnel and their families must 
be the highest priority.'' I also appreciate your commitment to ensure 
that ``the Bureau of Diplomatic Security has the resources, tools, and 
technology.'' it needs. In light of your sincere and welcome 
commitment, I would just point out that, by our count, 13 of 19 GAO's 
open priority recommendations for the Department of State relate to 
diplomatic security. Some of those open priority recommendations go 
back as far as 2014.While GAO acknowledges progress related to 
diplomatic security, GAO says additional steps can be taken to ``secure 
diplomatic facilities, residences, schools, and transportation routes 
and to prepare Diplomatic Security agents and other officials for 
emergency situations.'' More specifically, GAO says, in some cases, 
standards related to diplomatic security ``are unclear, contain 
inconsistencies, or have not been updated in a timely manner; and 
standards have not been developed for certain types of facilities.'' If 
confirmed, in light of your commitment, will you look at these priority 
GAO recommendations related to diplomatic security and then report back 
to this committee on progress in addressing those priority 
recommendations? Will you let us know if additional resources or 
authorities are required to provide our Department of State personnel 
the protection they need?

    Answer. Thank you for highlighting the importance of ensuring that 
the State Department's diplomats remain safe and secure as they carry 
out their important duties. If confirmed, I will absolutely review the 
priority GAO recommendations related to diplomatic security and would 
be happy to report back to the Senate Foreign Relations Committee on 
progress toward addressing them. Further, if confirmed, I am committed 
to ensuring the committee is made aware of additional resources or 
authorities that may be required to provide State Department personnel 
with the protection they need.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Brian Bulatao by Senator Edward J. Markey

    Question 1. Looking at the State Department's Fiscal Year 2019 
budget request, I am concerned that the State Department is neither 
appropriately staffed nor appropriately resourced to successfully 
execute the administration's North Korea pressure campaign--both for 
diplomacy and for sanctions enforcement. After the Trump-Kim Summit, 
China and other enablers of North Korea's bad behavior called for a 
loosening of sanctions. Now is not the time to back off the pressure. 
Will you commit to ensuring that the East Asia Pacific Bureau has 
sufficient resources and staffing to carry-out robust diplomacy, at 
multiple levels to pressure North Korea?

    Answer. As I mentioned in my testimony, if confirmed, I will 
support Secretary Pompeo in seeking funding that serves national 
interests, and will implement Congressional appropriations consistent 
with the law. I will advocate for the resources that the State 
Department needs for a range of global issues, including those in the 
Bureau of East Asian and Pacific Affairs. If confirmed, I will look 
forward to continuing discussions with Congress on funding for our 
diplomacy and foreign assistance programs, including for FY 2019.

    Question 2. It is my understanding that, as the Chief Operation 
Officer at the CIA, you pursued a ``field forward'' initiative. 
Similarly, in his first months as Secretary of State, Sec. Pompeo has 
made clear that ``we need our men and women out at the front lines, 
executing American diplomacy with great vigor and energy.'' As our 
country faces a growing array of threats, including commercial and 
economic competition from China, I can see real value in deploying more 
Foreign Service officers to embassies and consults abroad--where they 
can actively engage in helping U.S. businesses compete and win. Can you 
commit to a ``field forward'' approach as Undersecretary for 
Management, similar to the one you shepherded at the CIA and Sec. 
Pompeo has reiterated at the State Department? Can you come back to 
this committee with a concrete plan specifying how you will aid Sec. 
Pompeo in executing a ``field forward'' approach for American 
diplomacy?

    Answer. If confirmed, I commit to supporting Secretary Pompeo's 
field forward approach and will work with each respective Bureau to 
align our personnel and expertise against the Department's most 
critical strategic priorities. I look forward to working with Congress 
and our oversight committees as we develop and implement plans to align 
additional State Department personnel overseas to advance the security 
and prosperity of all Americans. American leadership in the world is 
indispensable to international stability.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Brian Bulatao by Senator Jeff Merkley

    Question 1. When Secretary Pompeo arrived at State, one of his 
first actions was to ``unfreeze'' Secretary Tillerson's ``hiring 
freeze''--a long overdue remedy for a self-inflicted wound. However, 
Secretary Pompeo's announcement was followed by a severe restriction 
that continued to freeze on the positions vacated prior to Dec. 31, 
2017--the majority of the positions impacted. If confirmed, will you 
provide information on how many positions are unfilled, and how long 
they have been unfilled, broken down by Bureau and Office, and listing 
the reasons why they haven't been filled?

    Answer. It is my understanding that the Secretary officially lifted 
the hiring freeze on Foreign Service and Civil Service employment on 
May 15, which ended the eight percent workforce reduction plan 
previously in place, and authorized hiring to sustain December 31, 2017 
staffing levels, as provided by Congress in the Consolidated 
Appropriations Act of 2018--Joint Explanatory Statement (the Act).
    If confirmed, my goal is to staff the Department to meet today's 
mission and be well positioned to meet the challenges of the future. I 
will work with Congress and ensure the Department will continue to 
provide data on our progress in filling vacant positions. I believe we 
must work together to advance our nation's foreign policy and support 
the work of diplomacy.

    Question 2. The safety and security of our State Department 
employees and their families is a top priority for all. As Under 
Secretary of State for Management you would be responsible for 
balancing their safety and the risks and flexibility required for 
American diplomats to do their jobs. If confirmed, will you commit to 
reviewing any unnecessary bureaucratic barriers that might keep 
diplomats from doing the kind of engagement necessary to advance 
America's interests, and to empower posts and security officers to 
develop managed risk strategies to best balance personal security and 
mission needs?

    Answer. Security conditions faced by our foreign affairs community 
overseas are constantly evolving, but the need to operate globally and 
carry out our diplomatic mission remains. If confirmed, I commit to 
ensuring the Department constantly assesses the threat environment in 
which our people live and work, mitigating risk with all the tools at 
our disposal, and making informed risk management decisions. My 
objective will always be to ensure U.S. personnel working in our 
diplomatic missions overseas are able to carry out their duties in as 
safe and secure an environment as possible.

    Question 3. In addition to efforts to retain senior level talent 
and to entice entry-level talent into the Foreign Service, the 
Department of State must work to retain the expertise of mid-level 
Foreign Service officers who will be the next generation of senior 
leaders. In 2017, Foreign Service promotion numbers at every grade were 
reported to be well below normal levels. The low promotion numbers have 
potentially career-limiting implications for the large number of mid-
level officers in an ``up-or-out'' system. Will you work with the 
American Foreign Service Association to assess promotion levels on an 
annual basis, to better ensure that the Department of State continues 
to develop future leaders at every level?

    Answer. Developing a diverse cadre of future leaders is one of my 
highest priorities. Ensuring that the ``up-or-out'' promotion system is 
advancing our best and brightest is a critical component of that 
effort. If confirmed, I will work with the American Foreign Service 
Association to ensure that we have career development opportunities for 
all levels of employees.

    Question 4. The ill-conceived ``reorganization,'' and related 
budget and staffing cuts implemented by Secretary of State Tillerson 
created unprecedentedly low morale and led to a wave of senior-level 
departures from the Department of State. If confirmed, how, 
specifically, do you plan to address all the factors contributing to 
attracting new talent, talent retention, and increasing diversity 
recruitment, so that the Department reflects the whole of America and 
does not lose our investment in training and building expertise in 
Foreign and Civil Service employees?

    Answer. If confirmed, I'm committed to having a diverse and 
inclusive State Department. If we are going to continue to have the 
best diplomatic service in the world, we have to make sure we continue 
to weave diversity into the whole lifecycle of our talent, whether 
that's through recruiting, how we look at promotions, or the training 
we provide.

    Question 5. If confirmed, do you commit to working with Congress to 
communicate the State Department's efforts to promote equal opportunity 
and inclusion for all American employees in direct hire and personal 
service contractor status to include equal opportunity for all races, 
ethnicities, ages, genders, sexual orientations, and service-disabled 
veterans, with a focus on traditionally underrepresented groups? Do you 
pledge to provide detailed information to Congress, on an annual basis, 
on diversity employment statistics?

    Answer. If confirmed, I am committed to a diverse and inclusive 
State Department. If we are going to continue to have the best 
diplomatic service in the world, we have to make sure we continue to 
weave diversity into the whole lifecycle of our talent, whether from 
recruiting, career advancement, or training. Congressional oversight is 
an important part of making sure that the Department stays on track 
with its diversity goals. I am committed to ensuring that we regularly 
report diversity data to you.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Denise Natali by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have spent decades working to assure the human rights and 
provide humanitarian assistance to refugees and civilians affected by 
war and violent conflict. This includes serving as a volunteer case 
worker for Catholic Charities--where I assured basic housing, jobs, and 
daily needs for newly arrived refugee families in the Washington D.C. 
area, working (for a stipend) for a non-governmental organization in 
Peshawar Pakistan to provide and monitor healthcare to populations in 
Afghanistan and Afghan refugees in Pakistan, and providing disaster 
relief and humanitarian aid (for USAID) to and help resettle the more 
than 2 million Kurdish refugees that fled to the mountains of Turkey 
and Iran after the 1990 Gulf War, and Saddam Hussein's incursion. I 
have continued this effort while also helping to promote democracy in 
post-Saddam Iraq by rebuilding the country's high-education 
institutions as part of a larger transition from authoritarianism to 
Democracy. I helped start up the first English-language University in 
the Kurdistan Region of Iraq, taught classes in English at public and 
private universities, and contributed to developing the international 
student exchange at the American University of Iraq-Sulaimania. This 
includes providing opportunities for Iraqi students to gain 
scholarships overseas and the U.S. so that they can be the next leaders 
of their country. As a professor in Iraq, I developed (the first) 
courses to include ``Transitions to Democracy'' and have worked with 
civil society groups and independent media to advance attention to the 
need for the rule of law and democratic institutions in Iraq, and the 
Kurdistan Region. My impact is seen through the dozens of students I 
have helped teach who are now leaders in their local communities and in 
positions of authority, and committed to the principles of democratic 
governance and human rights principles. Some refugee/displaced families 
I have helped have a good quality of life can offer their children 
access to education, as well as other opportunities.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development today across the globe? Please be 
as specific as possible.

    Answer. A variety of global challenges threaten democracy and 
democratic development. As the interagency lead on matters related to 
state fragility, conflict prevention, and stabilization, I understand 
that CSO currently focuses on seven core lines of effort: atrocity 
prevention, countering violent extremism, defections, disarmament, 
demobilization, and reintegration of foreign fighters, political and 
electoral violence, and peace processes. Other pressing challenges to 
democracy and democratization--and why many countries get stuck in 
democratic transitions--are influenced by structural constraints, 
historical legacies, and institutional weaknesses. Addressing these 
issues requires long term development assistance--as well as local 
actors that are committed to these changes. In my experiences on the 
ground and teaching about democratic transitions, another important 
challenge is getting entrenched elites with deep patronage networks to 
decentralize their authority, or peaceably give up power. Democracy 
development often coincides with security demands, and can be used by 
local elites as a reason for not engaging in political opening by 
tightening restrictions on civil society groups or those it perceives 
as its opponents.

    Question 3. What steps will you take--if confirmed--to support 
democracy in post conflict countries? What do you hope to accomplish 
through these actions? What are the potential impediments to addressing 
the specific obstacles you have identified?

    Answer. Stabilization is an inherently political endeavor that must 
be centered on country-specific histories, local realities, and 
leadership. This starts with understanding the local grievances and 
dynamics--social, economic, and political--that drive violence. If 
confirmed, I will prioritize implementing recommendations from the 
Stabilization Assistance Review (SAR) by working with key stakeholders 
at State and across the interagency to promote post-conflict activities 
that support development of locally legitimate actors who support 
democratic governance, to include inclusivity and recognition of 
leaders among minority group communities.. In doing so, U.S. policies 
can enhance the capabilities of those actors and groups who are engaged 
in and committed to democratic governance.

    Question 4. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs should you travel abroad?

    Answer. If confirmed, I will meet regularly with civil society 
members, human rights groups and other non-governmental organizations 
in the United States and with local human rights NGOs when traveling 
abroad. I would ensure that CSO continues to value the unique 
partnership with these civil society groups and the expertise and 
insight that they contribute to conflict prevention, mitigation and 
stabilization work.

    Question 5. In countries threatened by criminal violence, 
terrorism, and corrupt authoritarian rule, what role should U.S. 
assistance have in supporting democratic political processes and good 
governance?

    Answer. The Stabilization Assistance Review (SAR) emphasizes the 
importance of prioritizing, layering, and sequencing foreign assistance 
to advance stabilization goals. If confirmed, I would promote 
stabilization activities as an inherently political endeavor and 
contribute to U.S. efforts to align our efforts--diplomatic engagement, 
foreign assistance, and defense--to support legitimate authorities that 
can peaceably manage conflict and prevent resurgence of armed activity. 
I would support these critical efforts by the United States, as they 
establish the necessary conditions and foundations in which longer-term 
work on democracy and human rights advancement to be effective.
    It is also my understanding that CSO supports democratic political 
processes and good governance by providing direct support to civil 
society organizations and non-governmental community actors to engage 
in conflict prevention and mitigation activities at the ground level. 
This includes grants to organizations and other groups that engage in 
civil society development, local reconciliation, and peace processes--
which in turn, can support democratic political processes. If 
confirmed, it will be my priority to work with key stakeholders to 
effectively cooperate with and work within local communities to 
increase local support and build legitimacy from the bottom up by 
strengthening local political and social systems.

    Question 6. What efforts will CSO, under your leadership, undertake 
and prioritize to prevent the outbreak of violence around the world, 
and increase capacities to identify and address root causes?

    Answer. The United States has a national security interest in 
identifying and addressing the root causes of conflict. Stabilization 
is not an exercise in state building--a hard lesson from the last 17 
years, as noted in the Stabilization Assistance Review. Instead, it is 
an inherently political endeavor that must be centered on local 
realities and leadership, with an understanding of the local grievances 
and dynamics--social and economic--that drive violence. American 
diplomats face a daunting volume of information while identifying 
emerging risk and prevent violence. CSO's data analytics help the 
Department cut through the overload and provide key insights that 
complement the traditional forms of political reporting. If confirmed, 
I will ensure CSO continues identifying and flagging for the Department 
areas for risk and prompt contingency or stabilization planning. If 
confirmed, I would ensure the bureau's structured qualitative and 
quantitative analytic methods are fully integrated in the Department's 
work to help decision makers anticipate, prioritize, shape, and target 
both policy initiatives and programs for prevention.

    Question 7. What is CSO's role in supporting atrocities prevention 
and how does it help to advance U.S. national interests? Please provide 
country-specific examples.

    Answer. Preventing mass atrocities are core to U.S. national 
security interests as they have ripple effects for entire regions. 
Atrocities not only have a devastating human toll, but once they are 
underway, they make reconciliation and stabilization more difficult. 
Working to prevent atrocities also helps advance U.S. national security 
interests because it can obviate the need for kinetic action.
    For example, following an attack on Muslim neighborhoods in the 
Central African Republic in 2017, a CSO-funded program arranged 
mediators to hold community discussions advocating for the return of 
displaced Muslims, the re-opening of their shops, and gender-based 
violence prevention. Another example of where CSO's engagement 
prevented potential atrocities is during the 2017 Kenyan elections 
where CSO funded a 21-month, $2.1 million program that contributed to 
the U.S. embassy working with the Kenyan Government to bring opposing 
sides together. Another example is in Columbia, where CSO is working to 
help the Columbia and U.S. Governments monitor the peace processes.

    Question 8. Please describe the status and priorities of the APB 
under the Trump administration. Do you believe CSO has proven effective 
in supporting the APB? Why or why not?

    Answer. If confirmed, I look forward to reviewing CSO's role in 
supporting the Atrocities Prevention Board (APB). The December 2017 
National Security Strategy affirms the United States has vital 
interests in protecting civilians from mass atrocity crimes. I 
understand that the Atrocities Prevention Board (APB) serves three main 
functions: addressing and mitigating ongoing atrocities, 
institutionalizing early warning and prevention, and demonstrating 
global leadership on atrocity prevention. CSO serves as the State 
Department's Secretariat for the APB.
    I understand that CSO and the APB have successfully brought 
attention and resources to recent incidents of atrocities in countries 
like Burundi and the Central African Republic, where U.S. Government 
attention and resources were previously limited. In Burma, in addition 
to CSO's support on intercommunal conflict support to U.S. Embassy 
Rangoon, CSO's conflict advisor sent to the Embassy from August 2017-
January 2018 provided conflict analysis while gathering and verifying 
information on reported atrocities in the Northern Rakhine State. I 
understand that CSO's analysis contributed to the Department's 
determination that ethnic cleansing had taken place against the 
Rohingya people.

    Question 9. How will CSO support the findings and recommendations 
of the SAR?

    Answer. The Stabilization Assistance Review (SAR) outlines a 
framework to maximize U.S. Government efforts to stabilize conflict-
affected areas. If confirmed, I will ensure CSO efficiently and 
effectively carries out its leadership role executing the SAR 
implementation plan. I understand that over the last several months, 
CSO worked with the National Security Council (NSC), USAID, DoD, and 
other relevant U.S. Departments and Agencies to develop an 
implementation plan for the SAR. This implementation plan includes 
actions necessary to operationalize the SAR's findings. Currently, 
State is leading a process to execute this implementation plan. 
Additionally, I understand that CSO is implementing SAR principles in 
the bureau's thematic work on atrocity prevention, countering violent 
extremism, defections and reintegration of foreign fighters, election 
and political violence, and peace process support.

    Question 10. What efforts will the Bureau of Conflict and 
Stabilization Operations, under your leadership, undertake to link 
stabilization efforts with inter-agency initiatives to address root 
drivers of conflict; to prevent violence and mass atrocities; and to 
prevent countries experiencing or emerging from violent conflict from 
relapsing into recurring cycles of violence (for instance, as in 
Yemen)?

    Answer. The Stabilization Assistance Review (SAR) maximizes U.S. 
Government efforts to stabilize conflict-affected areas. If confirmed, 
I would build approaches consistent with the SAR finding that the U.S. 
Government needs to approach stabilization as an inherently political 
endeavor and align our efforts--diplomatic engagement, foreign 
assistance, and defense--to support legitimate authorities that can 
peaceably manage conflict and prevent resurgence of armed activity.
    If confirmed, I would continue CSO efforts to apply stabilization 
lessons from the SAR process and findings to its work on conflict 
prevention. In Yemen for instance, I understand that CSO completed a 
deep-dive analysis of local security actors, grievances, and drivers of 
instability, and violent incidents, and shared these findings with U.S. 
policy makers and international partners. I understand that CSO also 
provides support to key stakeholders with best practices guidance on 
peace processes; disarmament, demobilization and reintegration or DDR; 
and stabilization. If confirmed, I will ensure CSO's conflict 
prevention efforts are informed by these lessons and that CSO leverages 
inter-agency, multilateral, and civil society partners to share the 
burden and advance U.S. policies in conflict-impacted areas.

    Question 11. What specifically will you do to ensure CSO is 
undertaking its mission in a way that strengthens local civil society 
and local leadership for peace in conflict-affected environments?

    Answer. If confirmed, I would build approaches consistent with the 
Stabilization Assistance Review (SAR) finding that, to be successful, 
the U.S. Government needs to embrace stabilization as an inherently 
political endeavor and align our efforts--diplomatic engagement, 
foreign assistance, and defense--toward supporting locally legitimate 
authorities that can peaceably manage conflict and prevent resurgence 
of armed activity. I would integrate the lessons from the SAR process 
to ensure that CSO's stabilization efforts are centered on local 
realities and leadership, which starts with understanding the local 
grievances and dynamics--social and economic--that drive the violence.
    If confirmed, I would prioritize CSO policy and activities to 
support the capacity development of civil society actors, organizations 
and local research institutions to prevent conflict, atrocities, and 
violent extremism. Beyond capacity development, I would look to 
leverage CSO's position to strengthen and better connect these civil 
society actors to host nation, multilateral, and USG policy makers and 
programmers. One example is the local reconciliation processes that 
involve religious communities, youth, and other groups who are integral 
to stabilization.

    Question 12. How will the Bureau of Conflict and Stabilization 
Operations, under your leadership, promote locally-owned and developed 
solutions to conflict, recognizing that sustainable prevention of 
violence is in the moral, security, and economic interests of the 
United States?

    Answer. If confirmed, I would build approaches consistent with the 
Stabilization Assistance Review (SAR) finding that, to be successful, 
the U.S. Government needs to embrace stabilization as an inherently 
political endeavor and align our efforts--diplomatic engagement, 
foreign assistance, and defense--toward supporting locally legitimate 
authorities that can peaceably manage conflict and prevent resurgence 
of armed activity. I would integrate the lessons from the SAR process 
to ensure that CSO's stabilization efforts are centered on local 
realities and leadership, which starts with understanding the local 
grievances and dynamics--social and economic--that drive the violence.
    If confirmed, I will ensure that CSO's conflict prevention efforts 
are informed by real-time, evidence-based data analytics that provide a 
detailed understanding of local realities and actors. To maximize local 
ownership, I will prioritize getting our officers to the field so they 
can identify reliable partners and ensure the perspectives of these 
actors inform project design and implementation. To maximize return on 
investment for the U.S. taxpayer, I will ensure our officers get to the 
field to monitor program progress and impact regularly, and make the 
necessary modifications to account for changes on the ground. If 
confirmed, I would prioritize CSO work to support the capacity 
development of civil society actors, organizations and local research 
institutions to prevent conflict, atrocities, and violent extremism. 
This requires leveraging local networks that CSO officers have 
developed while in the field, and in coordination with the U.S. Embassy 
and other key stakeholders.

    Question 13. What is the value that CSO provides to the State 
Department and U.S. Government more broadly, and why is it important to 
fund this work?

    Answer. CSO protects U.S. national security and advances diplomatic 
and economic interests by working with key stakeholders both in the 
U.S. Government, with other governments, international organizations, 
and local partners to anticipate, prevent or respond to violent 
conflict and facilitate political stability. CSO does this by deepening 
the Department of State's understanding of how to anticipate, prevent, 
and respond to violent conflict through evidence-based analysis, and 
targeted expeditionary diplomatic and engagements.

    Question 14. CSO receives a limited amount of resources for 
programmatic work. What types of programs will you look to prioritize, 
and how do you envision these programs tying into, and advancing, the 
rest of CSO's work?

    Answer. If confirmed, I would seek to institutionalize a process of 
``strategic triage'' where CSO's priorities are linked to the 2017 
White House National Security Strategy, as well as where CSO can have 
an impact --where there is security and locally legitimate authorities 
and structures who can peacefully manage conflict and prevent the 
return to violence.

    Question 15. According to the Department of State, CSO is leading a 
working group tasked with encouraging ``defections and disengagement 
from ISIS and its affiliates.'' Are you aware of any specific results 
realized by this working group?

    Answer. I understand that CSO is deeply involved in the Defeat-ISIS 
campaign. If confirmed, I would look forward to being fully briefed on 
CSO's work in this effort as defections, demobilization, disengagement, 
de-radicalization, and reintegration (4DR) is a critical element of the 
D-ISIS Strategy. If confirmed, I would look forward to reviewing how 
CSO contributes to the D-ISIS campaign--as well as effort to prevent 
the growth of future terrorist organizations.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Denise Natali by Senator Benjamin L. Cardin

    Question 1. How do you believe conflict and stabilization 
operations (CSO) support U.S. efforts to prevent atrocities? How does 
this work help advance U.S. national security interests? Can you give 
country-specific examples where U.S. CSO efforts have made a difference 
in preventing possible atrocities?

    Answer. Preventing mass atrocities are core to U.S. national 
security interests as they have ripple effects for entire regions. 
Atrocities not only have a devastating human toll, but once they are 
underway, they make reconciliation and stabilization more difficult. 
Working to prevent atrocities also helps advance U.S. national security 
interests because it can obviate the need for kinetic action.
    For example, following an attack on Muslim neighborhoods in the 
Central African Republic in 2017, a CSO-funded program arranged 
mediators to hold community discussions advocating for the return of 
displaced Muslims, the re-opening of their shops, and gender-based 
violence prevention. Another example of where CSO's engagement 
prevented potential atrocities is during the 2017 Kenyan elections 
where CSO funded a 21-month, $2.1 million program that contributed to 
the U.S. embassy working with the Kenyan Government to bring opposing 
sides together. Another example is in Columbia, where CSO is working to 
help the Columbia and U.S. Governments monitor the peace processes.

    Question 2. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have spent decades working to assure the human rights and 
provide humanitarian assistance to refugees and civilians affected by 
war and violent conflict. This includes serving as a volunteer case 
worker for Catholic Charities--where I assured basic housing, jobs, and 
daily needs for newly arrived refugee families in the Washington D.C. 
area, working (for a stipend) for a non-governmental organization in 
Peshawar Pakistan to provide and monitor healthcare to populations in 
Afghanistan and Afghan refugees in Pakistan, and providing disaster 
relief and humanitarian aid (for USAID) to and help resettle the more 
than two million Kurdish refugees that fled to the mountains of Turkey 
and Iran after the 1990 Gulf War, and Saddam Hussein's incursion. I 
have continued this effort while also helping to promote democracy in 
post-Saddam Iraq by rebuilding the country's high-education 
institutions as part of a larger transition from authoritarianism to 
Democracy. I helped start up the first English-language University in 
the Kurdistan Region of Iraq, taught classes in English at public and 
private universities, and contributed to developing the international 
student exchange at the American University of Iraq-Sulaimania. This 
includes providing opportunities for Iraqi students to gain 
scholarships overseas and the U.S. so that they can be the next leaders 
of their country. As a professor in Iraq, I developed (the first) 
courses to include ``Transitions to Democracy'' and have worked with 
civil society groups and independent media to advance attention to the 
need for the rule of law and democratic institutions in Iraq, and the 
Kurdistan Region. My impact is seen through the dozens of students I 
have helped teach who are now leaders in their local communities and in 
positions of authority, and committed to the principles of democratic 
governance and human rights principles. Some refugee/displaced families 
I have helped have a good quality of life can offer their children 
access to education, as well as other opportunities.

    Question 3. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I will make every effort to promote diversity within the 
Bureau of Conflict and Stabilization operations, and particularly those 
individuals who are underrepresented in the Foreign Service. I will 
provide/support opportunities for their professional development, offer 
them leadership roles and positions of responsibility, and always keep 
my door open and be available to hear their ideas and concerns. I also 
believe in team-building and having groups working together of diverse 
backgrounds.

    Question 4. What steps will you take to ensure each of the 
supervisors in the Bureau of Conflict and Stabilization Operations are 
fostering an environment that is diverse and inclusive?

    Answer. I am committed to assuring a bureau based on diversity, 
inclusivity, and excellence. To do so, I will inform the supervisors of 
the need to maintain a balanced representation of staff from different 
socio-economic, racial, religious, and gender backgrounds, and who are 
qualified for their positions. I will also require supervisors to put 
teams together that are diverse and assure equal opportunities for 
professional development and leadership responsibilities for minority 
groups. I will further seek to hire interns and staff that assure the 
diversity and excellence of the bureau, which also includes looking 
outside of Washington D.C. recognized schools for hires.

    Question 5. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No. I do own an apartment in Paris, but it is not a rental 
and therefore does not generate income.

    Question 8. What efforts do you believe CSO should undertake and 
prioritize to prevent the outbreak of violence around the world?

   Do you believe it is in the strategic national security interests 
        of the U.S. to identify and address root causes of conflict? If 
        so, why?

    Answer. U.S. diplomats face a daunting volume of information while 
trying to identify emerging risk and prevent violence. CSO's data 
analytics help the Department provide key insights that complement the 
traditional forms of political reporting. If confirmed, I will ensure 
that CSO continues to identify and flag for the Department areas for 
risk and prompt contingency or stabilization planning. The bureau's 
structured analytic methods, both qualitative and quantitative, help 
decision makers anticipate, prioritize, shape and target both policy 
initiatives and programs for prevention.
    I agree that the United States has a national security interest to 
identify and address root causes of conflict. Stabilization is not an 
exercise in state building. Instead, it is an inherently political 
endeavor that must be centered on local realities and leadership, with 
an understanding of the local grievances and dynamics--social and 
economic--that drive the violence. Addressing the root causes of 
conflict is essential to developing accurate and effective programs and 
policy recommendations.

    Question 9. If confirmed, how will you have CSO implement the 
findings of the recently concluded and released Stabilization 
Assistance Review?

    Answer. The Stabilization Assistance Review (SAR) outlines a 
framework to maximize U.S. Government efforts to stabilize conflict-
affected areas. CSO and State's Office of Foreign Assistance Resources 
(F) led the review, along with partners from USAID and DoD. Over the 
last several months, CSO worked with the National Security Council 
(NSC), USAID, DoD, and other relevant U.S. agencies to develop an 
implementation plan for the SAR. This implementation plan includes 
actions necessary to operationalize the SAR's findings. Currently, 
State is leading a process to execute this implementation plan. If 
confirmed, I will ensure that CSO efficiently and effectively carries 
out its leadership role in executing the SAR implementation plan. My 
understanding is that CSO is already implementing SAR principles in the 
bureau's thematic work on atrocity prevention; countering violent 
extremism; defections; disarmament, demobilization, and reintegration 
or DDR; election and political violence; and peace process support.

    Question 10. What efforts will CSO, under your leadership, 
undertake to link stabilization efforts with inter-agency initiatives 
to address root drivers of conflict and prevent violence and mass 
atrocities, to prevent countries experiencing or emerging from violent 
conflict from relapsing into recurring cycles of violence?

    Answer. The Stabilization Assistance Review (SAR) maximizes U.S. 
Government efforts to stabilize conflict-affected areas. The SAR found 
that the U.S. Government needs to approach stabilization as an 
inherently political endeavor and align our efforts--diplomatic 
engagement, foreign assistance, and defense--to support legitimate 
authorities that can peaceably manage conflict and prevent resurgence 
of armed activity.
    I understand that CSO is applying stabilization lessons from the 
SAR process and findings to its work on conflict prevention. If 
confirmed, I will ensure CSO's conflict prevention efforts are informed 
by these lessons and that CSO leverages inter-agency, multilateral, and 
civil society partners to share the burden and advance U.S. policies in 
conflict-impacted areas.

    Question 11. What specifically will you do to ensure CSO is 
undertaking its mission in a way that better promotes locally owned and 
developed solutions to conflict, and strengthens local civil society 
and communities to prevent future violence?

    Answer. If confirmed, I will build on CSO's support to civil 
society that is driven by a strong and growing body of evidence that 
locally-developed and led responses to violent conflict are more 
effective and durable. For example, CSO's own research found that an 
active, independent civil society promoting human rights and 
sustainable development can alleviate social and political exclusion 
and redirect grievances that could otherwise lead to violence. Where 
civil society is active, and communities participate in a formal 
political space, these communities are generally less sympathetic to 
extremist groups.

    Question 12. CSO funding has continued to diminish over the past 
several years. How do you plan to meet the needs of an increasingly 
conflict-affected world with such a limited budget?

    Answer. Although funding levels have decreased, I understand that 
CSO has worked to prioritize programs based on administration 
objectives and leveraged resources from across the Department to design 
tailored, innovative, and evidence-based programs. If confirmed, I will 
ensure CSO continues to leverage inter-agency, multilateral, and civil 
society partners to share the burden in advancing U.S. policies in 
conflict-impacted areas. A key finding of the Stabilization Assistance 
Review (SAR) is the need for division of labor with national and 
international partners to improve U.S. stabilization efforts. If 
confirmed, I would ensure that CSO continues to work actively through 
our partners at the Stabilization Leaders Forum (SLF) (a group of 
foreign countries who burden-share with us) to address priority 
stabilization challenges.

    Question 13. If Congress appropriates additional funding to CSO, 
are you committed to using these funds as Congress has intended?

    Answer. Yes, if confirmed I will I will ensure that CSO will follow 
all applicable laws to obligate funds appropriated by Congress.



                               __________

                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 31, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:00 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Johnny 
Isakson, presiding.
    Present: Senators Isakson [presiding], Gardner, Young, 
Booker, Cardin, Shaheen, Coons, Murphy, and Kaine.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. The Committee on Foreign Relations will 
come to order.
    Senator Inhofe, are you in a big rush, or can you wait?
    Senator Inhofe. No, I am not.
    Senator Isakson. Okay. I will get to you in just a minute, 
because I know you have got a special introduction to make.
    Let me introduce Senator Booker and myself. We will make 
opening remarks, the Majority and Minority, and then we will go 
through with questions and hear the testimony of our witnesses.
    Calling this hearing of the Senate Foreign Relations 
committee to order. I am happy to step in today while our 
colleague, Senator Flake, is serving as an International 
Elections Monitor in Zimbabwe. It is truly a historical moment 
for that country, and I am eager to hear the official results.
    Today, we will hear the testimony from four nominees to 
serve the United States in various positions:
    Michael Hammer has been nominated to be U.S. Ambassador to 
the Democratic Republic of the Congo. I have been to the DRC. I 
appreciate your willingness to serve, and wish you the very 
best.
    Kyle McCarter has been nominated to serve as our Ambassador 
to Kenya. We met this morning. I have been there, and been to 
Kibera, which is the largest slum, outside of India, in the 
world. And I know how much attention the Kenyans need.
    Stephanie Sullivan has come--been nominated to be our 
Ambassador to Ghana, where I also had the pleasure of going 
when Jonathan Mills was President, and before he passed away. 
And they are a great friend of the United States, Millennium 
Challenge recipient, and a great--they raise some great 
pineapple, too, I might add.
    And finally, Donald Tapia has been nominated to represent 
the United States in Jamaica. I want to thank you for your 
willingness to serve in--our country in these posts. And I do 
not want to sound like I am a world traveler, but I have been 
in Jamaica, too. And the Rio Grande River is one of the nicest 
things to tube down you have ever seen in the world. So, you 
will--I am sure you will enjoy it.
    I want to welcome the family members who are here today 
with you. And I hope you will introduce them during your 
remarks. I know that you have colleagues who would like to 
introduce Mr. Carter--Mr. McCarter and Mr. Tapia.
    At this point, I will recognize Senator Inhofe to introduce 
Mr. McCarter.

              STATEMENT OF HON. JAMES M. INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. It is an honor for 
me to be here to introduce my fellow Oklahoman, our Okie from 
Muscogee, and his wife and his son.
    You know, I have had the honor of visiting Africa, I think, 
more than anyone in the history of the United States Senate. 
Just got back from my 161st African country visit. And, 
ironically, one of those was Kenya, which is going to be--which 
Kyle McCarter has been nominated to participate in.
    We had an interesting experience just last--about a month 
ago, when we had two individuals that were running. Of course, 
Kenyatta is the President of Kenya, but he had opposition, a 
guy named Odinga. And so, I had the honor--and this was before 
the National Prayer Breakfast. We had 4,000 people there. Now, 
that is a big cut of the population. And I was honored to go up 
and bring up both Odinga and Kenyatta, and have them embrace, 
everyone cheered, and that country has actually come back 
together. They were in the middle of all kinds of problems at 
that time.
    Well, the--we are seeing a lot of positive changes in 
Kenya. And I believe that Kyle McCarter is the perfect person 
for that job. Kyle grew up in Muskogee, and attended Oral 
Roberts University. From a young age, his parents, Calvin and 
Linda, instilled his faith and love for serving others in him. 
Today, he is a small business owner, State representative, and 
past international director of an organization called Each One 
Feed One. It is the longest-serving NGO in northern Kenya.
    Kyle and his wife, Victoria, who is in--Victoria is the 
educational director for that same group, Each One Feed One--
have lived in Kenya the--in the past, and they travel there 
frequently, and now support their efforts in regularly working 
with USAID and tribal chiefs and other dignitaries. And I--he 
understands the situation there. He has a love for Africa, and 
specifically for Kenya, with a background there. He is going to 
do a good job.
    I have to say this, though, that there are two others that 
I also consider to be good friends: Michael Hammer and 
Stephanie Sullivan. We have talked together, worked together on 
different African projects for a long period of time. So, I 
enthusiastically support the two of them, also.
    But, this is the guy I am nominating, all right? 
[Laughter.]
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Isakson. Well, thank you, Senator. You know what? 
It occurs to me, since you said what you said, I have never had 
the chance, since I got here 14 years ago, to thank you for 
introducing me to Africa for the first time in Djibouti and in 
the National Prayer Breakfast, in Kenya, as a matter of fact, 
at the----
    Senator Inhofe. That is right.
    Senator Isakson.--Safari Hotel in Nairobi, Kenya, a long 
time ago. There is no question, you have been a great 
Ambassador to the people of Kenya and to the United States of 
America from those people. And I have attended the Prayer 
Breakfasts, actually, I think just about every morning that it 
is here, in February every year, and when we have gone to 
Africa together. And you are a great leader for that--
introducing that country to--that continent to us. And I 
appreciate very much the time you have spent with me when I 
have gone there.
    Senator Inhofe. Well, that is very nice of you. Thank you.
    Senator Isakson. Thank you very much.
    Now it is a pleasure to introduce Cory Gardner to introduce 
our next nominee.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thanks, to all of the nominees here, for your 
willingness to serve our country. Welcome, to your families, as 
well.
    This is an incredible opportunity to introduce to the 
committee Don Tapia, from Arizona. And I just want to start by 
sharing a couple things, a couple statements and quotes about 
Mr. Tapia and the kind of person he is.
    This is a quote about his growing up. He lived the American 
Dream, from the slums to Paradise Valley. ``It was a helluva 
ride from a one-bedroom flat with a Murphy bed shared by my 
mother and sister while I slept on a couch, a father who 
disappears and a mother who is strapped to make the rent and 
feed my sister and I. I used to tell people we had a lot--I 
used to tell people we had a lot, a lot of potato soup, with 
very little potato.''
    If you look at his background, the work he has done in 
education, the work that he has done as, you know, chairman of 
the Board of Trustees at Saint Leo University--and I will get 
into that in a little bit--the Boys and Girls Club of 
Metropolitan Phoenix, Teen Lifeline Phoenix, Advisory Council 
of Arizona, Animal Welfare League, Advisory Board for the 
Foundation for Blind Children in Phoenix, Arizona, a U.S. Army 
veteran, the list goes on and on of the things that he has 
accomplished.
    But, perhaps one of the best moments in reading about Mr. 
Tapia's life is talking to his six grandchildren about the 
importance of education. But, Mr. Tapia, after having sold 
magazines and books, starting his own business, a very 
successful business, Essco Electric Wholesale--Wholesale 
Electric, outside of Phoenix, that he needed to practice what 
he preached. And so, he decided that he would leave the company 
at 3 o'clock in the afternoon every day, without telling 
anybody what he was doing, so that he could take an online 
course to get his degree. Getting his degree from Saint Leo. In 
fact, becoming the first chairman of their--first board member 
of Saint Leo with a online degree because of his commitment to 
education, practicing what he preached.
    Studied flight control, which later led him to his job as 
air-traffic controller. He went on to create that--his own 
business. But, he began by selling to contractors, eventually 
building a multimillion-dollar wholesale company, the largest 
Hispanic-owned company in Arizona, according to the Hispanic 
Business 500 List for 2008. He has lived a life of exemplary 
service. He has lived a life of commitment. And he started with 
humble roots. And to return to those humble roots of public 
service today.
    Mr. Tapia, thank you for your willingness to serve this 
country. It is an honor to know you, to call you friend, and to 
have your commitment today.
    Senator Isakson. Thank you, Senator Gardner. Appreciate 
your introduction.
    I will go ahead and introduce Mr. Hammer and Ms. Sullivan, 
and then we will open--opening remarks by Senator Booker, and 
then we will go to the testimony of our witnesses.
    Mr. Hammer is a career member of the Senior Foreign Service 
who previously served, U.S. Ambassador to Chile. Widely 
recognized for his broad policy formulation and implementation 
skills, Mr. Hammer is highly skilled, experienced choice to be 
Ambassador to the Democratic Republic of the Congo, especially 
as he goes through a pivotal election time in December.
    Ms. Sullivan is a career member of the Senior Foreign 
Service, with over 30 years of experience. Prior to her joining 
the Foreign Service, she was a Peace Corps volunteer in Africa. 
She is currently serving as a Deputy Assistant to the Secretary 
of the African Affairs. And I appreciate her commitment for 
this country and to Africa. Her familiarity with a region I 
believe is critical to the United States, and her previous 
collaboration with both USAID and the United States military 
will enable her to promote good governance, economic 
development and regional security in Ghana.
    Now, all four of you have--are nominated to very important 
positions. We know your families are proud of us--proud of you, 
and so is your country.
    I will now turn to Ranking Member Cory Booker for his 
remarks.

               STATEMENT OF HON. CORY A. BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Mr. Chairman, forgive me. I am going to--
just for the sake of time, I am going to submit my opening 
remarks for the record. Let us get to hear from the nominees 
before us.
    [Senator Booker's prepared statement follows:]


               Opening Remarks by Senator Cory A. Booker

    Thank you to the nominees for being here today and for your 
willingness to serve in these posts.
    Ambassador Hammer, I know you come to Africa after long and deep 
service and South America, and we appreciate your willingness to take 
on what will be a very challenging mission in DRC if confirmed.
    Ambassador Sullivan, this committee appreciates your decades-long 
commitment to Africa and representing the U.S. to its people. Ghana and 
the United States continue to share a positive relationship and I look 
forward to hearing your thoughts on how we should deepen our economic 
relationship.
    DRC (Democratic Republic of the Congo) has been the subject of 
legislation, letters, and numerous statements by Chairman Flake and I.
    Congolese president, Joseph Kabila, has refused to step down since 
the end of his constitutionally mandated two term limit in 2016 
creating instability and a humanitarian crisis in which thousands of 
civilians have been killed and 4.5 million have been displaced.
    It has been a personal priority to ensure we have a qualified 
Ambassador in DRC well before the elections.
    Kenya remains one of the United States' most important economic and 
counterterrorism partners in the region. However, there are concerns 
about the political repression and closing of space for civil society 
and press following last year's contentious elections.
    The tumultuous election process led to abuse and violence including 
dozens of killings. Kenyan authorities, particularly the police, have 
repeatedly denied the abuses and failed to hold the responsible parties 
accountable.
    Kenya has long had a troubling track record on LGBTQ human rights, 
and has a longstanding ban on same-sex sexual activity. However, it 
stands on the cusp of possibly overturning that colonial-era law, in a 
case that could reverberate throughout Africa and other parts of the 
world.
    Earlier this year, Kenya's highest court heard arguments in a case 
challenging it, and the court is expected to announce a decision later 
this year.
    So you can understand, Mr.McCarter, your nomination after your long 
history of efforts to resist or even roll back progress for LGBTQ 
people in the state of Illinois gives me pause and concern for the 
message it sends to Kenya.
    Mr.Tapia, welcome to the committee. I know Senator Flake is 
regretful to miss your hearing, but I am glad that we are able to hear 
from you today.


    Senator Isakson. That must have been a good story. I have 
not seen you that speechless in a long time. [Laughter.]
    Senator Isakson. We will now open for a 5-minutes opening 
statement by each one of the--our witnesses, and then we will 
have Q&A for that. And if you go way over 5 minutes, a big bull 
will come in to get you, so try and hold it within 5, if you 
can. Thank you very much.
    We will start with Mr. Tapia.
    Donald Tapia?

    STATEMENT OF DONALD R. TAPIA, OF ARIZONA, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                  STATES OF AMERICA TO JAMAICA

    Mr. Tapia. Mr. Chairman, distinguished members of the 
committee, I am honored to appear here today as President 
Trump's nominee in the next U.S. Ambassador to Jamaica. I am 
grateful to the President and to the Secretary Pompeo for the 
confidence they have placed in me.
    Thank you, Senator Gardner, for being here and speaking on 
my behalf.
    Four year ago--four years ago, I was CEO and owner of Essco 
Electric, a wholesale electric company that was the largest 
Hispanic-owned company in Arizona. Since retirement, I have 
been involved in various philosophic and entrepreneurial 
ventures, including Teen Lifeline, Boys and Girls Club, 
Metropolitan Phoenix and Arizona Animal Welfare. Growing up in 
a very destituted area of Detroit, Michigan, I never would have 
imagined that I would one day appear before the distinguished 
members of this committee, seeking confirmation for one of the 
most important posts that our government could convey upon one 
of its citizens. I feel the same as Bubba Watson, when he won 
the master's degree at Augusta. He was asked if he ever dreamt 
of winning the master's. And I put in quote, ``I never have a 
dream go that far, so I cannot really say that it is a dream 
come true.''
    Having served in the United States Air Force instead of the 
Army, I am excited for the prospect of serving our Nation once 
again if confirmed as Ambassador to Jamaica. I am firmly 
committed to building on our partnership with the Jamaican 
Government in the areas of security, prosperity, energy, 
education, health, and diplomacy. If confirmed, I would pledge 
to work closely with Congress in advancing our national 
interests in Jamaica. Safeguarding the welfare of all U.S. 
citizens will be the highest priority. To achieve this, I will 
work with U.S. law enforcement agencies, in conjunction with 
the Jamaican counterparts, to identify and prosecute 
transnational criminal organization, finance fraud, and a lot 
of old scammers, as well as human and drug trafficking.
    Jamaica's proximity to the United States, shared culture, 
and language can facilitate expansion, engagement, investment, 
trade, and cooperation. Jamaica is ripe for the development of 
a renewed energy source, like geothermal, solar, and wind 
power. Jamaica has some of the world's highest electricity 
rates, which reduces competitiveness and prevents them from 
investing in other areas, such as education and business 
enterprises.
    If confirmed, I will continue to support the OPIC--Overseas 
Private Investment Corporation--and TSTI, U.S. Trade and 
Development Company, in their efforts to focus on promising 
sectors, including storage, renewable energy, infrastructure, 
and small business development.
    Jamaica is also subject to extreme weather events, 
including hurricanes, storms, flooding, and earthquakes, which 
lead to lost in capital and investment funds. I will work to 
advance the--what the USAID is doing, working along with 
Jamaica Government to strengthen its resilience up, preparation 
of service of severe weather events.
    With approximately 30,000 current residents having HIV/
AIDS, Jamaica faces one of the highest prevention rates in the 
Caribbean. If confirmed, I will continue to work with PEPFAR, 
President's Energy Plan for AIDS Relief, working with all 
levels of government, civil society, and endeavor, with all the 
people living with HIV are diagnosed and immediately receive 
treatment. This includes working with all partners to reduce 
stigma and discrimination to ensure just access and prevention 
of treatment, which can affect the United States.
    With my management and entrepreneurial skills, commitment 
to success, and leadership in business, community, and 
education, makes me qualified to serve as the Ambassador to 
Jamaica. I can be a conduit between the Jamaican Government and 
the U.S. business community, if confirmed.
    Mr. Chairman, esteemed members of this committee, I want to 
express my sincere appreciation for your consideration of my 
nomination as Ambassador to Jamaica. I would be very happy to 
answer any questions.
    [Mr. Tapia's prepared statement follows:]


                 Prepared Statement of Donald R. Tapia

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear here today as President Trump's nominee to be the 
next United States Ambassador to Jamaica. I am grateful to the 
President and to Secretary Pompeo for the confidence they have placed 
in me. I would like to thank Senator Gardner for being here and 
speaking on my behalf as well.
    If I may, I would like to thank my family and friends who have made 
the trip to be present today. To Londa Perkins, my grandson Joel 
Chidley, and the many other friends that are here today. I thank you 
for supporting me through this process. I will always carry the value 
and importance of family.
    For years I was the CEO and owner of Essco Electric, a wholesale 
electrical company that was the largest Hispanic owned company in 
Arizona for five years in a row. Since retiring, I have been involved 
in various philanthropic and entrepreneurial ventures including Teen 
Lifeline, Boys & Girls Club of Phoenix, and the Arizona Animal Welfare 
League.
    Growing up in a very destitute area of Detroit, Michigan, I never 
would have imagined that I would one day appear before the 
distinguished Members of this committee seeking ambassadorial 
confirmation. I feel the same as Bubba Watson did, when he won the 
Masters at Augusta National. When asked if he had ever dreamed of 
winning the Masters he said, ``I never had a dream go this far, so I 
can't really say it's a dream come true.''
    Having served in the United States Air Force, I am excited by the 
prospect of serving our nation once again. If confirmed as Ambassador 
to Jamaica I am firmly committed to building our partnership with the 
Jamaican Government in the areas of security, prosperity, energy, 
education, and health.
    If confirmed, I will pledge to work closely with Congress to 
advance our national interests in Jamaica. Safeguarding the welfare of 
all U.S. Citizens will be my highest priority. To achieve this, I will 
work to support our U.S. law enforcement agencies working in 
conjunction with Jamaican counterparts to identify and prosecute 
transnational criminal organizations, financial fraudsters, as well as 
human and drug traffickers.
    Jamaica's proximity to the United States, and shared culture and 
language can facilitate increased engagement, investment, trade, and 
cooperation. Jamaica is ripe for development of renewable energy 
sources like geothermal, solar and wind power. Jamaica has made 
improvements, but still has high electricity rates, which reduce 
economic competitiveness and prevent them from investing in other areas 
like education and business enterprises. If confirmed,
    I will continue to support the Overseas Private Investment 
Corporation (OPIC) and the U.S. Trade and Development Agency (USTDA) in 
their efforts to encourage renewable energy investments and 
diversification, infrastructure improvements, and small business 
development.
    Jamaica is also subject to extreme weather events including 
hurricanes, storms, flooding, and earthquakes that lead to losses in 
capital stock and investments. The United States Agency for 
International Development (USAID) helped strengthen a system for 
developing, financing and executing sustainable climate adaptation 
approaches in the region. If confirmed, I will support and work with 
the Jamaican Government to strengthen its preparedness for and 
resilience to severe weather events.
    Additionally, with 30,000 people living with HIV, Jamaica has one 
of the highest prevalence rates in the Caribbean. If confirmed, I will 
continue to support the President's Emergency Plan for AIDS Relief 
(PEPFAR), working with all levels of government and civil society to 
ensure that people living with HIV are diagnosed and immediately 
receive treatment. This includes working with all partners to reduce 
stigma and discrimination and ensuring equitable access to prevention 
and treatment of this disease.
    If confirmed, strengthening the United States partnership with 
Caribbean countries through the Caribbean Basin Security Initiative 
(CBSI), our signature security partnership with fifteen Caribbean 
partner countries, would be a priority. I will also work closely with 
the Jamaican Government to promote and foster human rights, including 
those of the LGBTI community, and in parallel, combat gender-based 
violence and human trafficking.
    Overall, I believe my management and entrepreneurial skills, 
commitment to success, and leadership in business, community, and 
education, make me well qualified to serve as the U.S. Ambassador to 
Jamaica, if confirmed. Mr. Chairman and esteemed members of the 
committee, I want to express my sincere appreciation for your 
consideration of my nomination as U.S. Ambassador to Jamaica. I would 
be happy to answer any questions.


    Senator Isakson. Thank you very much, Mr. Tapia.
    Ms. Sullivan.

STATEMENT OF HON. STEPHANIE S. SULLIVAN, OF MARYLAND, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
     COUNSELOR, NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE REPUBLIC 
                            OF GHANA

    Ambassador Sullivan. Mr. Chairman, Ranking Member, 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee to be the next 
Ambassador to the Republic of Ghana.
    I appreciate the confidence the President and Secretary of 
State Pompeo have shown in me through this nomination. If 
confirmed, I look forward to working with you and other Members 
of Congress and staff to advance American interests in Ghana.
    I am joined today by my husband, John Sullivan, and our 
sons, Dan and Scott.
    Senator Isakson. Stand up. God bless you.
    Ambassador Sullivan. We have fond memories of our 4 years 
in Ghana when the boys were small.
    Senator Booker. I am sorry to interrupt you, but is one of 
those people living in New Jersey? Is that correct?
    Ambassador Sullivan. That is correct, sir.
    Senator Booker. I am sorry. Could the Jersey boy stand up? 
[Laughter.]
    Senator Booker. Yes. Thank you very much. You are a very 
handsome man, sir. [Laughter.]
    Senator Cardin. But, could you tell us what State you are 
from, just so we're clear. [Laughter.]
    Ambassador Sullivan. Maryland, along with my husband and 
our older son.
    Senator Isakson. No wonder they got elected. [Laughter.]
    Ambassador Sullivan. In addition to 3 years as a Peace 
Corps volunteer in Africa, I have spent half of my 32-year 
Foreign Service career working on African issues. Before 
serving as Acting Principal Deputy Assistant Secretary of State 
for African Affairs, I was Ambassador to the Republic of Congo. 
If confirmed, I look forward to returning to the region and 
building on the strong relationship between the United States 
and Ghana.
    Ghana is one of our leading partners in sub-Saharan Africa, 
and hosts the Africa Bureau's fifth-largest diplomatic mission. 
It serves as a regional hub for many U.S. Government 
activities, hosting one of the Young African Leaders Initiative 
Regional Leadership Centers, for example.
    The country has been traditionally a leader on the 
continent, blazing the trail for independence in 1957. Our two 
peoples enjoy longstanding ties. Back in 1961, Ghana welcomed 
the world's first Peace Corps volunteers. Today, some 150 
volunteers serve alongside counterparts throughout the country 
in the agriculture, education, and health sectors. In addition, 
the Fulbright, Humphrey, and other exchange programs have built 
decades of personal connections between Americans and 
Ghanaians.
    In keeping with U.S. policy priorities for Africa, our 
efforts in Ghana advance three mutually reinforcing goals: 
promoting economic development and trade, improving regional 
security, and strengthening good governance.
    Our first goal is promoting economic development and trade. 
Ghana has the potential to become one of sub-Saharan Africa's 
leading economies. It has recently experienced strong economic 
growth, advancing at a rate of 8.5 percent in 2017. The United 
States is among Ghana's principal trading partners, with 
bilateral trade exceeding $1.6 billion last year. Many major 
U.S. companies operate in Ghana.
    Earlier this month, Secretary of Commerce Ross led a 
delegation of the President's Advisory Council on Doing 
Business in Africa to Ghana, where he signed a memorandum of 
understanding to deepen the commercial partnership between our 
two countries. Also, through a $498.2 million Millennium 
Challenge Corporation compact, the United States supports the 
transformation of Ghana's energy sector via private-sector 
participation and key policy and institutional reforms that 
will provide more reliable and affordable power to Ghana's 
businesses and households.
    If confirmed, I will promote trade and help Ghanaian 
businesses take better advantage of the African Growth and 
Opportunity Act. I will also encourage the Government of 
Ghana's anticorruption efforts, its investment of oil revenues 
to advance development, its sustainable management of its 
environmental resources, and its pursuit of regional economic 
integration. I will support Ghana's journey away from 
dependence on traditional development assistance, in line with 
President Nana Akufo-Addo's vision of Ghana beyond aid.
    Our second goal is improving regional security. We share an 
interest in countering terrorism and promoting stability across 
West Africa. Ghana has provided peacekeepers throughout the 
world, starting in 1960. Through its regional training centers, 
Ghana builds peacekeeping and security-sector capacity beyond 
its borders.
    Our third goal is strengthening good governance. We work 
with Ghana to enforce--reinforce democratic institutions and 
enhance government responsiveness to its citizens. If 
confirmed, I expect to witness Ghana's eighth consecutive 
peaceful national democratic election, in December 2020. I will 
ensure responsible stewardship of taxpayer dollars through 
effective leadership of U.S. Mission Ghana's strong interagency 
team.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today. I would be honored to respond to any 
questions.
    [Ambassador Sullivan's prepared statement follows:]


         Prepared Statement of Hon. Stephanie Sanders Sullivan

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to appear before you today as President Trump's 
nominee to be the next Ambassador to the Republic of Ghana. I 
appreciate the confidence he and Secretary of State Pompeo have shown 
in me through this nomination. If confirmed, I look forward to working 
with you and other Members of Congress and staff to advance American 
interests in Ghana.
    My husband, John Sullivan, and our sons, Dan and Scott, are here 
today. We have fond memories of our four years in Ghana when the boys 
were small. In addition to three years as a Peace Corps Volunteer in 
Africa, I have spent half of my 32-year Foreign Service career working 
on African issues. Before serving as Acting Principal Deputy Assistant 
Secretary of State for African Affairs, I was Ambassador to the 
Republic of Congo. If confirmed, I look forward to returning to the 
region and building on the strong relationship between the United 
States and Ghana.
    Ghana is one of our leading partners in sub-Saharan Africa and 
hosts the Africa Bureau's fifth-largest diplomatic mission. It serves 
as a regional hub for many U.S. Government activities, hosting one of 
the Young African Leaders Initiative Regional Leadership Centers, for 
example. The country has historically been a leader on the continent, 
blazing the trail for independence in 1957. Our two peoples enjoy 
longstanding ties. Back in 1961, Ghana welcomed the world's first Peace 
Corps Volunteers. Today, some 150 volunteers serve alongside 
counterparts in the agriculture, education, and health sectors 
throughout the country. In addition, the Fulbright, Humphrey, and other 
exchange programs have built decades of personal connections between 
Americans and Ghanaians.
    In keeping with U.S. policy priorities for Africa, our efforts in 
Ghana advance three mutually reinforcing goals: promoting economic 
development and trade; improving regional security; and strengthening 
good governance.
    Our first goal is promoting economic development and trade. Ghana 
has the potential to become one of sub-Saharan Africa's leading 
economies. It has recently experienced strong economic growth, 
advancing at a rate of 8.5 percent in 2017. The United States is among 
Ghana's principal trading partners, with bilateral trade exceeding $1.6 
billion last year. Many major U.S. companies operate in Ghana. Earlier 
this month, Secretary of Commerce Ross led a delegation of the 
President's Advisory Council on Doing Business in Africa to Ghana, 
where he signed a Memorandum of Understanding to deepen the commercial 
partnership between our two countries. Also, through a $498.2 million 
Millennium Challenge Corporation compact, the United States supports 
the transformation of Ghana's energy sector via private sector 
participation and key policy and institutional reforms that will 
provide more reliable and affordable power to Ghana's businesses and 
households.
    If confirmed, I will promote trade and help Ghanaian businesses 
take better advantage of the African Growth and Opportunity Act. I will 
also encourage the Government of Ghana's anti-corruption efforts, its 
investment of oil revenues to advance development, sustainable 
management of its environmental resources, and pursuit of regional 
economic integration. I will support Ghana's journey away from 
dependence on traditional development assistance, in line with 
President Akufo-Addo's vision of ``Ghana Beyond Aid.''
    Our second goal is improving regional security. We share an 
interest in countering terrorism and promoting stability across West 
Africa. Ghana has provided peacekeepers throughout the world since 
1960. Through its regional training centers, Ghana builds peacekeeping 
and security sector capacity beyond its borders. In fact, Ghana is the 
only country in sub-Saharan Africa that trains U.S. military forces. 
Our two countries recently signed a Defense Cooperation Agreement that 
will strengthen Ghana's defense capabilities and reinforce our security 
and military cooperation. If confirmed, I will also continue partnering 
with the Department of Defense's Africa Command on improving coastal 
and maritime security, both critical to protecting Ghana's offshore 
petroleum and fisheries sectors and to countering transnational 
threats.
    Our third goal is strengthening good governance. We work with Ghana 
to reinforce democratic institutions and enhance government 
responsiveness to its citizens. If confirmed, I expect to witness 
Ghana's eighth consecutive peaceful, national democratic election in 
December 2020. I will champion the fight against human trafficking. I 
will also work with the Ghanaian Government to bolster Ghana's 
democracy via the U.S. Agency for International Development's 
governance programs. Our robust bilateral partnership also helps 
Ghanaians reach their full potential, through strengthening the health, 
education, and agriculture sectors.
    Mr. Chairman, if confirmed, I will reinforce bilateral ties. I will 
vigorously pursue the safety and security of American citizens and 
advance U.S. interests in Ghana. I will ensure responsible stewardship 
of taxpayer dollars through effective leadership of U.S. Mission 
Ghana's strong interagency team.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I would be honored to respond to any questions.


    Senator Isakson. Thank you, Ms. Sullivan.
    Mr. Hammer.

  STATEMENT OF HON. MICHAEL A. HAMMER, OF MARYLAND, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
     COUNSELOR, NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                DEMOCRATIC REPUBLIC OF THE CONGO

    Ambassador Hammer. Good afternoon, Mr. Chairman, Ranking 
Member Booker, distinguished members of the Foreign Relations 
committee. It is a great honor and privilege to come before you 
once again before this committee to seek a third confirmation, 
on this occasion as the President's nominee to be the next 
United States Ambassador to the Democratic Republic of the 
Congo.
    My family history motivated me to serve our great country. 
I am a first-generation native-born American. My father, 
Michael Peter Hammer, gave up his life in service to our 
country when I was barely 17, and I knew then that I wanted to 
become an American diplomat. My mother, Magdalena Altares, 
supported my dream, despite knowing full well the inherent 
risks in our profession. And, in fact, she may be trying to 
watch from Madrid, so, to her, I say: [Speaking in Spanish].
    The Foreign Service, like your public service, is a family 
affair. I would like to recognize my wife, Marget 
Bjorgulfsdottir, who is with me here today and who has 
partner--been my partner and served our Nation for the past 30 
years. I certainly would not be here without her and without 
her steadfast support and sacrifice. I am also going to 
recognize my children, and then we can have them all stand up.
    Senator Isakson. Okay.
    Ambassador Hammer. My children love to be displayed in 
public. [Laughter.]
    Ambassador Hammer. And they have been terrific, and handled 
well, mostly with good humor, our Foreign Service moves: 
Monika, Mike Thor, and our youngest, Brynja, who will be 
affected during her senior year in high school if I am 
confirmed.
    Senator Isakson. You all stand up.
    Ambassador Hammer. All right. I will not be forgiven. 
[Laughter.]
    Senator Booker. And--on the end--is that a wife or a 
daughter? [Laughter.]
    Ambassador Hammer. Thank you, Senator.
    The United States has important interests in the Democratic 
Republic of the Congo. What happens in the DRC will affect the 
Central African region. If confirmed, I would be honored to 
lead Mission Kinshasa at one of the truly decisive points in 
the Congo's 58 years of independence, and would focus our 
efforts in five overarching priority areas:
    My top and most immediate policy priority will be to work 
toward a credible election that enables a peaceful and 
democratic transfer of power as we support democracy, promote 
good governance, and protect human rights. With the upcoming 
December 23rd elections, President Joseph Kabila has the 
opportunity to preside over the DRC's first democratic transfer 
of power and, in doing so, achieve a significant legacy that 
advances the interest of his country and delivers an 
opportunity for a more peaceful and prosperous future for the 
Congolese people.
    Second, together with our Ambassador to the United Nations, 
Nikki Haley, and her team, we will continue to support the 
United Nations peacekeeping mission in the Democratic Republic 
of Congo, MONUSCO, to help it carry out its mandate to protect 
civilians and support the electoral process.
    Third, we will continue to address the ongoing humanitarian 
crisis. The United States has been the most generous provider 
of humanitarian assistance to the Congolese people, and we will 
continue to work to alleviate the suffering and address the 
causes.
    Fourth, the Congo has experienced nine outbreaks of Ebola, 
the most recent of which was declared over just last week. So, 
I fully intend to continue to work and support the efforts of 
our Centers for Disease Control, our USAID mission, many 
international partners, and, of course, the very capable 
Congolese authorities, to ensure that future outbreaks do not 
become epidemics or pandemics.
    And finally, as when I was Ambassador to Chile, I will have 
no higher priority than to ensure the safety, security, and 
well-being of our American community, of our staff, and their 
families.
    The challenges in Congo are daunting. The stakes are high. 
The time is now for a credible election and peaceful transfer 
of power. If there is no improvement in governance or rule of 
law, there could be a return to large-scale violence and death, 
regional conflict, and mass starvation. The DRC is a tough 
assignment, but it is one that we, as Foreign Service Officers, 
relish. We relish the opportunity to serve our country, to 
advance America's interests, to do some good and make a 
difference.
    If confirmed, I would welcome discussing with you and your 
congressional colleagues how best to advance our interests in 
the Democratic Republic of the Congo. I value very much your 
engagement in the several meetings that I have had with you 
already, and would be happy to begin that conversation now and 
answer any questions you might have, today or in the future.
    Thank you very much.
    [Ambassador Hammer's prepared statement follows:]


              Prepared Statement of Hon. Michael A. Hammer

    Chairman Isakson, Ranking Member Booker, and distinguished members 
of the Foreign Relations committee, it is a great honor and privilege 
to appear before this committee seeking the Senate's confirmation for a 
third time, on this occasion as the President's nominee to be the 
United States Ambassador to the Democratic Republic of the Congo (DRC). 
I am grateful for the confidence the President and Secretary of State 
have placed in me for this challenging assignment.
    My family's history motivated me to serve our great country. I am a 
first-generation native-born American. My grandparents on my father's 
side fled Nazi Germany to France and then Ecuador before immigrating to 
the United States. My mother, Magdalena Altares, hails from Spain and 
met my father when he was serving in the U.S. Air Force at Torrejon Air 
Force base in the outskirts of Madrid. My father, Michael Peter Hammer, 
gave up his life in service to our country as I turned seventeen and 
rests across the Potomac on the hallowed grounds of Arlington. I knew 
then that I wanted to become an American diplomat, and my mother 
unequivocally supported my dream despite the risks inherent in our 
profession. Gracias Mami, no podria haber logrado esta carrera 
diplomatica sin tu apoyo.
    The Foreign Service, like your public service, is a family affair. 
I would like to recognize my wife Margret Bjorgulfsdottir, who has been 
my partner as we have served our nation for the past 30 years. When we 
were in graduate school at Fletcher up in Boston, Margret encouraged me 
to send in the paperwork for the Foreign Service knowing that it would 
derail her career. I would not be here today were it not for her 
steadfast support and sacrifice.
    I would like to also thank our three children, who have handled 
well, and mostly with good humor, our many Foreign Service moves, 
Monika, Mike Thor, and on this particular occasion our youngest, 
Brynja, who if the Senate confirms me, will be affected during her 
senior year in high school.
    The United States has important interests in the Democratic 
Republic of the Congo.
    After two coups, more than thirty years of dictatorship under 
Mobutu, a regional war that left millions dead, and President Joseph 
Kabila's 17 years in power, the DRC is on the cusp of its first 
peaceful, democratic transition since independence. In holding these 
elections on December 23, President Kabila can achieve a significant 
legacy that advances the interests of his country and delivers an 
opportunity for a more peaceful and prosperous future for the Congolese 
people.
    A stable Democratic Republic of the Congo is in the strategic 
interest of the United States. The DRC is the largest country in sub-
Saharan Africa; it is the size of the United States east of the 
Mississippi, and borders nine other nations. A failed election or 
turbulent transition could further destabilize not only the DRC and its 
over 80 million people, but also its many neighbors. Increased conflict 
in the DRC is already resulting in higher numbers of internally 
displaced people (IDPs) and refugees crossing into neighboring 
countries, with 780,000 Congolese that have fled to countries across 
central and southern Africa. A free, fair, and credible election in 
December would pave the way for a more stable DRC and Central African 
region.
    Our U.S. interagency team in Kinshasa, together with our highly 
skilled and dedicated Locally Employed Staff, are hard at work to 
advance America's interests. If confirmed, I would be honored to lead 
Mission Kinshasa at one of the truly decisive points in the DRC's 58 
years of independence and focus our efforts in five overarching 
priority areas.
Enabling Democracy, Promoting Good Governance, and Protecting Human 
        Rights
    My top immediate policy objective, if confirmed, will be advancing 
credible elections and a peaceful democratic transfer of power. The DRC 
Government must respect the constitution, honor the tenets of the 
December 2016 St. Sylvestre Agreement, and uphold its commitment to 
hold elections on December 23 to elect a new president. While elections 
will not solve all of the country's many challenges, they are a 
necessary step toward securing greater peace and prosperity. Basic 
freedoms and human rights must be upheld and respected. It is what the 
Congolese people demand and deserve, and the United States--as their 
enduring partner--will assist in this effort.
Advancing Security, Combating Corruption, and Increasing Transparency
    According to U.N. estimates, there are over 100 armed groups 
operating in the DRC. The DRC hosts the largest United Nations (UN) 
peacekeeping operation in the world--the U.N. Organization 
Stabilization Mission in the Democratic Republic of Congo 
(MONUSCO).Together with our Ambassador to the U.N. Nikki Haley and her 
team, Embassy Kinshasa will continue to support MONUSCO's efforts to 
protect civilians and enable a credible election. At the same time, 
there must be greater commitment by the DRC to reform its security 
institutions and build a more professional, transparent, and 
accountable police and military. We continue to demand justice for the 
tragic deaths of U.N. Security Council Group of Experts Michael Sharp 
and Zaida Catalan.
    A peaceful democratic transition is also imperative for spurring 
economic growth and investment. The DRC has substantial natural 
resource wealth, including an estimated $25 trillion in mineral 
reserves, yet remains one of the poorest countries in the world. It has 
the world's largest reserves of cobalt, plus copper, uranium, tantalum, 
tungsten, tin, diamonds, and gold. Many of these minerals are critical 
to U.S. industry. The DRC is also home to rich and unparalleled 
biodiversity, but in 2017 the DRC was named one of three Countries of 
Concern for Congress's END Wildlife Trafficking Act.
    DRC's current business climate is difficult and not conducive to 
foreign investment. Improved economic governance and respect for rule 
of law are essential to maintaining U.S. access to strategic minerals 
and to enable American businesses to effectively compete with Chinese 
firms. If confirmed, I intend to continue our efforts to combat 
corruption and increase transparency.
Addressing the Ongoing Humanitarian Crisis
    The United States has been the DRC's most generous donor for 
humanitarian and development needs. An estimated 13 million people are 
in need of humanitarian assistance in the DRC, including 7.7 million 
who face acute food insecurity, 4.5 million IDPs, and 530,000 refugees 
from neighboring countries. If confirmed, I will work closely with the 
State Department, U.S. Agency for International Development (USAID), 
other international donors, and non-governmental organizations as we 
continue this important humanitarian effort while seeking to address 
the underlying drivers of this urgent crisis and help set the DRC on a 
path to sustainable development and self-reliance.
Ensuring an Effective Response to Outbreaks of Infectious Diseases
    The DRC has experienced nine outbreaks of Ebola since the disease 
was first discovered there in 1976, most recently a 10-week reemergence 
that ended on July 24. The DRC's health officials have considerable 
experience and expertise responding to, and containing, infectious 
disease outbreaks. Much of this expertise was developed through decades 
of close collaboration with the Centers for Disease Control (CDC), 
USAID, National Institutes of Health, the Department of State, the 
Department of Defense, among others, and through shared commitment to 
initiatives such as the Global Health Security Agenda (GHSA). Together, 
these agencies implement major U.S. Government health programs in the 
DRC, including the President's Emergency Plan for AIDS Relief (PEPFAR), 
the President's Malaria Initiative (PMI), and the GHSA. If confirmed, I 
intend to continue to support the work of these expert U.S. agencies, 
capable Congolese authorities, and other international partners to 
prevent future epidemics and potential pandemics.
Serving and Protecting American Citizens
    As when I was Ambassador to Chile, I firmly believe that the 
success of our diplomacy depends on our people and, if confirmed, I 
will have no higher priority than to ensure the safety, security, and 
well-being of our mission staff and the American community. I recognize 
that our Embassy personnel in Kinshasa are serving under difficult 
conditions in a high-threat post with decaying infrastructure, and I 
will be focused on ensuring we have the necessary support that my team 
and their families require.
    The challenges in the DRC are daunting. The stakes are high. Absent 
a democratic transition and subsequent significant improvement in 
governance and rule of law, the risk of large-scale violence and 
deaths, regional conflict, mass starvation, and/or a pandemic will 
increase. The DRC is a tough assignment, but one that we as Foreign 
Service Officers relish--an opportunity to advance America's interests, 
do some good, and make a difference.
    If confirmed, I would welcome discussing with you and your 
Congressional colleagues how best to advance our interests in the 
Democratic Republic of the Congo. I value your engagement and am happy 
to begin that conversation now and answer any questions you have today 
or in the future. Thank you.


    Senator Isakson. Thank you very much, Mr. Hammer.
    Mr. McCarter.

    STATEMENT OF KYLE McCARTER, OF ILLINOIS, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF KENYA

    Mr. McCarter. Mr. Chairman, Ranking Member Booker, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    I am grateful to President Trump for nominating me for this 
position, and to Secretary Pompeo for his support.
    Thank you, especially, Senator Inhofe, for your gracious 
introduction, and, members of the Illinois Congressional 
Delegation, for your tremendous support.
    I am grateful to have with me today my beautiful wife of 34 
years, Victoria, and--who continually advocates for the 
empowerment of women in both the United States and Kenya; and 
my son, Austin McCarter, a graduate of my alma mater, Oral 
Roberts University, now running our family manufacturing 
company. My other son, Air Force Captain Zachary McCarter, who 
was born in Kijabe, Kenya, is not able to attend today, as he 
is on assignment in Africa.
    I am also thankful to my mother, Linda McCarter. She and my 
father showed me firsthand how to live a life of sacrifice to 
others. And, for that, I am eternally grateful. I am motivated 
by the legacy of my father, Lieutenant Colonel (Retired) 
Chaplain Calvin McCarter, who passed in March, the day after 
receiving the news of my nomination. I am inspired also by the 
memories of my daughter, Amber, who lived in Kenya with us for 
2 years.
    It is an especially high honor for me to be nominated to 
serve as the United States Ambassador to Kenya, a country I 
have come to know very well and whose people I greatly admire. 
More than 30 years ago, I moved with my wife, Victoria, and our 
daughter, Amber, who was 2 at the time, to a distant place 
named Tharaka. It was there that we built the medical clinic 
that continues to operate today, serving over 15,000 patients a 
year. The work now serves numerous HIV-positive families, 
operates a K-through-8 school and a children's home.
    In those early days, I never imagined that I would return 
to Kenya countless times to lead various development projects, 
like this, and have the opportunity to combine this with my 
experience from serving in the--as a State senator in the 
Illinois General Assembly. If confirmed, I will take, as my 
first responsibility, to lead the dedicated team of Foreign 
Service professionals and their families from the U.S. State 
Department and many other U.S. Government agencies at our 
Embassy in Nairobi. Serving with them, serving with this team 
of dedicated civil servants who work daily to promote America's 
interests in Kenya would be a great honor.
    I will use my experiences in business, public service, and 
philanthropy to build on the already strong bilateral 
relationship between the United States and Kenya. I will 
continue to demonstrate the goodwill and generosity of the 
American people through important programs, like PEPFAR, and I 
will ensure ongoing investments are made in critical efforts to 
defeat terrorism in the region. To help put Americans here at 
home back to work, I will be a resource for American companies 
doing business in Kenya, and work to promote partnerships that 
advance our common interests.
    The relationship between the United States and Kenya is 
strong. And, if confirmed, I am confident that we can build on 
this already solid foundation. Kenya is a leader in East 
Africa, and, with continued support from the United States, I 
believe that we can make strides in promoting greater freedom 
and opportunity, which is the potential to bring new 
investments to Kenya that create jobs for both our countries.
    My experience gained from building businesses and making 
win-win deals has prepared me to work in the best interests of 
the American taxpayers while at the same time stimulating the 
economy of Kenya while respect--with respectful, well-paying 
jobs. We must continue to prove to Kenya that America is the 
greatest of allies.
    I am also encouraged by the recent handshake between 
President Kenyatta and opposition leader Raila Odinga, and even 
the hug that the Senator spoke of in his introduction.
    The security of Americans in Kenya comes first. I take 
seriously the responsibility to protect Americans living and 
working abroad, as well as the need to meet our broader 
national security objectives. I will work diligently to prevent 
Kenya from being used as a gateway for terrorists. This is an 
immediate concern for the people of Kenya, America, and the 
rest of the world. Maintaining a strong strategic alliance with 
Kenya to fight the terrorist threat from Al Shabaab is a 
priority, and, if confirmed, it will rank as one of my highest.
    I understand the real challenge of the job. I take this 
opportunity, if confirmed, as an assignment to serve. My 
talents, my passion, my love and loyalty to our great country 
will be invested in this mission. My success in life as a 
husband, father, business owner, and legislator is based on 
serving others. And this challenge, with your approval, will 
receive that same level of dedication.
    [Ambassador McCarter's prepared statement follows:]


                  Prepared Statement of Kyle McCarter

    Mr. Chairman, Ranking Member Booker, distinguished members of the 
committee. Thank you for this opportunity to appear before you today.
    I am grateful to President Trump for nominating me for this 
position and to Secretary Pompeo for his support. Thank you Senator 
Inhofe for your gracious introduction and members of the Illinois 
Congressional delegation for your tremendous support.
    I am grateful to have with me today my beautiful wife of 34 years, 
Victoria, who continually advocates for the empowerment of women in 
both the United States and Kenya; and my son, Austin McCarter, a 
graduate of my alma mater, Oral Roberts University, now running our 
family manufacturing company. My other son, Air Force Captain Zachary 
McCarter, who was born in Kijabe, Kenya, is not able to attend today as 
he is on assignment in Africa. I am also thankful to my mother, Linda 
McCarter who is unable to be here today. She and my father showed me 
first hand how to live a life of sacrifice to others and for that I am 
eternally grateful. I am motivated by the legacy of my father, Lt. Col 
(Ret) Chaplain Calvin McCarter who passed in March the day after 
receiving the news of my nomination. I am inspired also by the memories 
of my daughter, Amber, who lived in Kenya with us for two years.
    It is an especially high honor for me to be nominated to serve as 
the U.S. Ambassador to Kenya, a country I have come to know very well 
and whose people I admire greatly. More than 30 years ago, I moved with 
my wife Victoria and our daughter Amber, who was two at the time, to a 
distant place named Tharaka, Kenya. It was there that we built a 
medical clinic that continues to operate today, serving over 15,000 
patients a year. The work now serves numerous HIV positive families, 
operates a K-8 school and a children's home. In those early days, I 
never imagined that I would return to Kenya countless times to lead 
various development projects like this and have the opportunity to 
combine this with my experience from serving as a State Senator in the 
Illinois General Assembly.
    If confirmed, I will take as my first responsibility to lead the 
dedicated team of Foreign Service professionals and their families from 
the U.S. State Department and many other U.S. Government agencies at 
our embassy in Nairobi. Serving with this team of dedicated civil 
servants, who work daily to promote America's interests in Kenya, would 
be a great honor.
    I will use my experiences in business, public service, and 
philanthropy to build on the already strong bilateral relationship 
between the United States and Kenya. I will continue to demonstrate the 
goodwill and generosity of the American people through important 
programs like PEPFAR and I will ensure ongoing investments are made in 
critical efforts to defeat terrorism in the region. To help put 
Americans here at home back to work, I will be a resource for American 
companies doing business in Kenya and work to promote partnerships that 
advance our common interests.
    The relationship between the United States and Kenya is strong and, 
if confirmed, I am confident that we can build on this already solid 
foundation. Kenya is a leader in East Africa and with continued support 
from the United States, I believe that we can make strides in promoting 
greater freedom and opportunity, which has the potential to bring new 
investments to Kenya that create jobs for both our countries.
    My experience gained from building businesses and making win-win 
deals has prepared me to work in the best interest of the American 
taxpayers, while at the same time stimulating the economy of Kenya with 
respectful well paying jobs. We must continue to prove to Kenya that 
America is the greatest of allies. I am also encouraged by the recent 
handshake between President Kenyatta and opposition leader Raila 
Odinga.
    The security of Americans in Kenya comes first. I take seriously 
the responsibility to protect Americans living and working abroad as 
well as the need to meet our broader national security objectives. I 
will work diligently to prevent Kenya from being used as a gateway for 
terrorists. This is an immediate concern for the people of Kenya, 
America and the rest of the world. Maintaining a strong strategic 
alliance with Kenya to fight the terrorist threat from Al Shabab is a 
priority and, if confirmed, it will rank as one of my highest. We must 
continue our efforts to share intelligence and work together on 
counter-terrorism initiatives.
    I understand the real challenge of the job. I take this 
opportunity, if confirmed, as an assignment to serve. My talents, my 
passion and my love and loyalty to our great country will be invested 
in the mission. My success in life as a husband, father, business 
owner, and legislator is based on serving others and this challenge, 
with your approval, will receive that same level of dedication.


    Senator Isakson. Thank you, Mr. McCarter.
    Did I skip introducing your wife? Did we introduce her?
    Stand up, please, dear. I saw that smile back there, and I 
said, ``I think I missed that lady.'' I do not want to do that. 
Thank you for your support.
    Mr. McCarter. And my son, as well.
    Senator Isakson. And your son. Anybody else?
    Mr. McCarter. Nope, that is it.
    Senator Isakson. Did I miss anybody else I should have 
introduced? Anybody like to be introduced? [Laughter.]
    Mr. Tapia. I would like to introduce my family that is here 
today: my daughter, Londa Davis, and my grandson, Joel Chidley.
    Senator Isakson. And where are you all? Are they here? Oh, 
there you are. Welcome. We are glad to have you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And congratulations to all of the nominees today. Thank you 
for being willing to consider taking on these difficult 
challenges at this very conflict-ridden time in the world. And 
thank you, to all of your families, for being willing to 
support you, should you be confirmed.
    I want to start with you, Ambassador Hammer, because, as 
you mentioned in your opening remarks, your top priority would 
be to try and encourage elections that should have happened in 
2016, but have been postponed continually, and, as you said, 
they are scheduled now for December 23rd. If those elections do 
not happen, what options do you have, as Ambassador, and what 
would you recommend for the administration here to address and 
encourage the DRC to think about turning over power peacefully?
    Ambassador Hammer. Thank you, Senator Shaheen. And it was--
it is nice to see you again. You chaired the panel when I was a 
nominee previously.
    Senator Shaheen. The last time, right?
    Ambassador Hammer. Yes. Thank you.
    And that--Senator, your question is exactly what we are 
very much focus on. I would say that, in what the 
administration has been doing--and I applaud the leadership 
that our Ambassador to the United Nations, Nikki Haley, has 
demonstrated in traveling to the Democratic Republic of Congo 
in October of 2017, meeting with President Kabila, and, as a 
result of her efforts and those of many others, we were able to 
get the elections back on track and have an electoral process 
that now we hope will culminate in a credible election in 
December 23rd.
    The key here--and again, if confirmed--is to get on the 
ground and continue the efforts that we have, as the United 
States Government along with other partners in the region, 
whether it is the neighbors, Angola or others further afield in 
South Africa, or some European partners, like the Brits, the 
French, or the international community, to stress how important 
it is that President Kabila live up to his commitment. It is--
it was his commitment, under the Saint-Sylvestre Agreement of 
2016, not to stand for a third term and to enable an election 
that will provide a peaceful transfer of power. And that is 
where we are really focusing on now. We will use all diplomatic 
tools that we can to ensure that that message is clear and 
understood. I very much appreciate the engagement by members of 
this committee, resolutions that have been passed, with Senator 
Flake and Senator Booker, that have conveyed that message very 
clearly to the Kabila Government, that it is now time to allow 
for an election that is without him as a candidate. We will 
also use targeted sanctions. We will use public messaging. We 
will ensure that we have technical assistance that we can 
provide to help carry out those elections. So, Madam Senator, 
really we are very much focused, again, on the here and now, 
the opportunity that we have, that President Kabila has and the 
Dem-Congolese people have, to have an election that is credible 
and that puts Congo on a better path.
    Senator Shaheen. Well, thank you. And I appreciate the 
cooperative effort to try and encourage the DRC to continue to 
move forward.
    Mr. McCarter, your record in Illinois as a legislature--as 
a legislator raises some very real concerns about your 
commitment to equal rights for all Americans. And, as I am sure 
you are aware, it is the policy of the State Department to 
advocate for LGBTQ rights as an integral part of its approach 
to promoting human rights around the world. So, given your 
opposition to marriage equality, to allowing same-sex couples 
to adopt, to some of the transgender legislation in Illinois 
that would have promoted equal opportunity for transgender 
people, can you commit to this committee that, if confirmed, 
you will meet with prominent members of Kenya's LGBTQ 
community, and that you will work to protect and advance their 
human rights?
    Mr. McCarter. Senator, thank you for the question. And I 
can understand why this is a question that you would want to 
ask.
    My--first, let me say that the Kenyan high courts are 
taking up, right now, this issue about decriminalizing 
homosexuality. I want you to know right now, I support that. I 
believe that is the right thing to do. My voting record in 
Illinois in the General Assembly on this issue is very clear. 
It is--it has been my sincerely-held belief that, as well as 
another foundational tenet of my faith, and that is that we 
should love one another, and love our neighbor as ourself. And 
so, let me--so, let me just say that--and this issue has no 
bearing on how and whom I serve in public government and in my 
business. Every person is created equal and deserving of 
respect. Discrimination of any type should not be allowed. And 
all those working under my leadership know this. If confirmed, 
it will--I will continue to be a leader, a manager, and a 
friend of people, all treated equal, with dignity and respect, 
regardless of their sexual orientation or religion.
    Senator Shaheen. And so, do you also commit that you will 
uphold all U.S. Government and State Department policies 
regarding equal opportunities in the workplace in your Embassy 
for LGBTQ employees, both American and Kenyan?
    Mr. McCarter. Absolutely, Senator.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Isakson. Thank you, Senator Shaheen.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you all for your service.
    Mr. McCarter, I am going to stay with you to try to further 
develop this line of questioning. And I will just sort of give 
you the reason for some of our concern, at least some of my 
concern. We had a nominee before this committee to be 
Ambassador to Germany, some months ago, who had, like you, a 
fairly robust public presence on social media in which he did 
not hold back his political views. He promised to us that he 
would, sort of, tone that down once he went abroad, that he 
would be a good diplomat. And within about a day of getting on 
the ground, he was, once again, offering his political 
opinions, and has not stopped. And so, we want to make sure 
that, when we send diplomats abroad, they drop their political 
views.
    So, let me ask you about the comments that you have made on 
Twitter about America's refugee policy. You have been deeply 
critical of President Obama's plans to bring in refugees to 
this country. I will not read you all your tweets, but there 
are some pretty tough comments here. And you are going to a 
country that brings in hundreds of thousands of refugees. They 
host, today, 500,000 refugees. And, in fact, it is official 
American policy to encourage Kenya to continue to shelter 
Somali and South Sudanese refugees. And so, you can imagine it 
is very concerning to many of us that we are sending an 
Ambassador to Kenya who has used his pulpit to try to 
discourage his own country from bringing in refugees, while 
your job will be to try to encourage Kenya. It sounds like we 
are sending a pretty interesting message to Kenya with the 
nomination of someone who has had such outspoken views about 
keeping refugees out of the United States.
    Answer my concerns about your comments on refugees and what 
your position will be with respect to the--Kenya's history of 
taking in refugees.
    Mr. McCarter. Senator, thank you for that question.
    The only concern I have is the proper vetting. And as long 
as those refugees are vetted properly, so not to cause risk to 
our citizens, I am as welcoming as anyone, because what I have 
seen is that these folks, they have grit, they have the ability 
to overcome some really tough situations. They are not good--
you know, they are not coming because they just chose a better 
place, they are coming because they have been put down, they 
have been held back. And so, I know the grit that they have and 
the good that they bring to our country. So, let me because 
very clear. My only concern, in all of those dialogues, was 
that the vetting is as--what it should be.
    Senator Murphy. I accept that explanation. I will just note 
that Kenya does not do the kind of vetting that you might 
expect us to do. They have made the decision to act with 
compassion to bring those refugees in, notwithstanding their 
inability to do the kind of vetting that some would like this 
country to do and, I would argue, we do.
    Let me just associate myself with the concerns that Senator 
Shaheen raised. Again, I accept your answer, that you are going 
to respect U.S. policy with respect to LGBTQ rights, though I 
remain concerned about some of your comments in the past.
    Lastly, let me just raise one tweet to you and ask you to 
explain it. On the night of the election, you sent out a tweet 
that read as such, ``Hillary for prison. No, really.'' What did 
you mean by that? Do you actually believe that Hillary Clinton 
should be in prison?
    Mr. McCarter. Senator, there are--there are conversations 
to have. And I am not the one to say anyone should be accused 
unjustly. But, there is--you know, there is a hype in an 
election that we make--you know, and we question. And I did 
pose the question. And perhaps that was not called for, but I 
will tell you, I did pose the question.
    Senator Murphy. Probably worthwhile for anybody thinking 
about taking a diplomatic post to just stand down on Twitter. 
These are not helpful comments to someone who is being asked to 
represent the United States abroad. That is not a sufficient 
explanation, as far I am concerned, especially that it came on 
the night of the election. But, again, I appreciate you 
answering the questions.
    Thank you, Mr. Chairman.
    Senator Isakson. Thank you, Senator Murphy.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. It is great to be 
with you and Senator Booker again, and to have these nominees 
in front of us.
    I want to start by thanking you and your families for your 
willingness to take on service overseas in a wide range of 
countries where our relations are particularly important. And I 
am grateful to my colleagues for the speed with which we have 
moved to confirm Ambassadors to Africa, an important continent, 
where we need to be well represented.
    And I want to just take a moment and share that Senator 
Flake is not with us, because he is acting as an election 
observer today in Zimbabwe, where an historic election took 
place yesterday, something--a group of five of us, Senator 
Booker and Senator Flake and I and two others, visited Zimbabwe 
a few months ago to consider their upcoming election, and I was 
grateful that this committee voice-voted out a bill that has 
now passed the Senate and the House, and is awaiting the 
President's signature, to make it clear to the Government of 
Zimbabwe what are the necessary political and economic reforms 
for our sanctions on that country to be lifted. Of course, 
central among them, free, fair, and credible elections. I also 
am optimistic. The election was held relatively peacefully, 
with very high turnout, more that 70 percent, and most 
Zimbabweans waited for hours in line. I am looking forward to 
hearing an announcement of the results soon. I am also pleased 
we moved quickly to confirm now-U.S. Ambassador to Zimbabwe 
Brian Nichols and Assistant Secretary Tibor Nagy.
    So, let me ask a few questions, if I might, in the 3 and a 
half minutes I have remaining.
    If I might, Mr. McCarter, just talk a little bit more about 
what are the most critical components of moving ahead a 
constructive political dialogue between President Kenyatta and 
Raila Odinga. You referenced the handshake. Political 
reconciliation is key to Kenya moving forward. Kenya is a vital 
ally in the region. We have to see some progress. What do you 
think are the key elements in making progress in political 
reconciliation in Kenya?
    Mr. McCarter. Senator, thank you for this question.
    It is very important. It is very important to every aspect 
of what takes place in that country, because, as we know, the 
division--the ethnic division has been an issue. These things 
do not take--these things do not get better overnight, but it 
is really encouraging to see what--how they are moving forward.
    I expect that new leadership at the local level is going to 
help this situation. I think the devolution--the move to take 
that power from the federal government down to the county 
levels, I expect--and I think we have already seen new leaders 
step up to help bring people together, not just to speak for 
their region, not just to speak for their tribe, but to speak 
on behalf of the nation, as a whole. And so, I am encouraged by 
this devolution process, where these new leaders--some young 
leaders are stepping up to lead. And I think that is a good 
thing. And I think that is what is going to make a big 
difference.
    Senator Coons. And will part of your role, should you be 
confirmed, be active outreach, helping county-level governments 
advance and improve in helping a younger generation of leaders 
be involved in this reconciliation process?
    Mr. McCarter. Yes, Senator. And let me just say, I think, 
for any leader, you know, I--it--we have said you do not have 
success without successors--for any leader, you have to be 
bringing up people beside you, and encouraging them, lead--
motivating them to take on that vision for--you know, for a 
country like Kenya, like--and I plan on doing that. I have 
always done that in my role as a senator. I will continue to do 
that as a role as Ambassador, if confirmed.
    Thank you.
    Senator Coons. Thank you.
    Ambassador Hammer, thank you for being willing to take on a 
country the size of, you know, the continent of Europe. Very 
complicated, with a very tragic history, great deal of internal 
conflict and regional conflict. Senator Shaheen has already 
asked you about this, but let me follow up further, if I might.
    Tomorrow, I am going to co-host a Human Rights Caucus event 
on the upcoming elections in the DRC. What more can we be doing 
to work with regional leaders to make sure that the country 
holds timely and credible elections? What kinds of incentives 
can we, or should we, offer to Kabila? Across the continent, we 
have the problem of presidents changing their constitutions, 
extending their terms, and not leaving. And how do you think we 
should gauge whether these elections--hopefully, they will 
happen December 23rd--how do we gauge whether the results are 
credible? What factors do we look for?
    Ambassador Hammer. Thank you, Senator Coons, in your--for 
your personal engagement, also, on issues relating to the 
continent specifically, and on the DRC, including a session you 
will be hosting tomorrow.
    You are absolutely right, and we are engaging with partners 
in the region. As I mentioned previously, whether it is Angola, 
South Africa, some of the other neighbors, but also with the 
African Union, SADC, the United Nations, the EU, I think all 
trying to project the same message. And the message is that we 
have an expectation that President Joseph Kabila will abide by 
the Congolese constitution, and not a seek a third term, that 
he will live up to his word, in the agreement of 2016, that he 
would allow for the transfer of power peacefully. And so, as we 
move forward, we need to look to see--you know, he should 
understand that there is a legacy at stake, and he has an 
incredible opportunity to enable the first peaceful democratic 
transfer of power in the 58-year history of the Democratic 
Republic of the Congo. And he also, I think, understands, as do 
many others, that we are holding people accountable who stand 
in the way of allowing for a democratic process, who may be 
corrupt, who are violators of human rights. You probably know 
full well that we have imposed sanctions on six individuals and 
one entity under the provisions of the law that allow us to do 
so in the DRC. We have also worked with the United Nations to 
identify and sanction four other people. And we have used visa 
restrictions.
    But--that is on the stick side, but on the carrot side, I 
think the message is, to the Congolese people, that they have a 
partner in the United States of America. As I mentioned, we are 
the most generous donor on humanitarian assistance, but we are 
ready to go beyond that and help in its development and empower 
the Congolese people to have the opportunity for a better 
future. And that requires, of course, coordination and work 
with this committee that is so engaged. And I would look 
forward to, if confirmed, have further discussions on how, 
again, we can help the Congolese people realize the kind of 
future that they so much desire.
    Senator Coons. Thank you. Thank you, Ambassador.
    I have got more questions, but I am out of time for now.
    Senator Isakson. Get right to you just as soon as we get 
the other questions done.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations, to each of you, both for your 
nominations and your service.
    Senator McCarter, I want to follow up on just the last 
comment that Senator Murphy asked you. I was a missionary in a 
military dictatorship in 1980 and '81, and it was the kind of 
place where political opponents would be put in prison. And, 
boy, it was an eye-opener for me, because I had not experienced 
anything other than suburban Kansas City when I moved to 
Honduras and lived in a society where, if you were a political 
opponent, you could be put in prison. And that was an eye-
opener, but also really convinced me that, ``Thank God that is 
not who we are.''
    You know, other nations--and there is a lot of them--not 
just Honduras, but other nations, are those kinds of places 
today, all over the globe. There are stories in the newspapers 
today about political opponents being put in prison. And so, 
when somebody in this country, especially in a position--a 
titled position of trust, which you hold, suggests that--not 
that somebody is bad, should not be elected, glad they lost, et 
cetera, but they should be put in prison, I just--especially 
having lived in Kenya and seen a circumstance different than 
maybe we have here. I am just completely perplexed.
    Have you had cause to repent of that attitude? You said to 
Senator Murphy, you acknowledged that you raised the question. 
It is not a question. I mean, it is a--it is sort of an 
assertion that would seem to be completely contrary to the 
system of government that we have. What--do you have a 
response? Have you had cause to think about that and repent of 
it?
    Mr. McCarter. Senator, perhaps it was not the wisest of 
tweets. And, you know, that is the thing about----
    Senator Kaine. Can I say this----
    Ambassador McCarter:--tweets. They do not--they will not--
you cannot grab them back. That is----
    Senator Kaine. Yeah. I am not----
    Mr. McCarter. Yeah.
    Senator Kaine.--questioning the note--the letters that your 
hand typed. I am questioning, How does a thought like that come 
into the brain of somebody who is serving as an elected 
official in a democratic system like we have? It is not that 
you typed it, it is--you had to think it before you typed it. 
And it just seems so contrary to the values of a democracy that 
we would live in that suggesting prison for a political 
opponent is something that you would likely do.
    Mr. McCarter. Well, obviously, no one should be convicted 
of anything they did not do. I understand that. So, it--again, 
if it--perhaps it is one of those tweets that you would like to 
reel in, but you cannot. And that was one of those.
    Senator Kaine. There is a beautiful biblical phrase, ``From 
the fullness of the heart the mouth speaks.'' It is less the 
mouth than the heart that I guess I am inquiring about when I 
ask that question.
    Let me ask, to Ambassadors Sullivan and Hammer. You guys 
have had some pretty amazing experiences. I had a son who was 
deployed in Africa with the Marines in 2015. Talk a little bit 
about mil-to-mil cooperation, mil-to-mil interaction between 
the United States military and both Ghana and the DRC.
    Ambassador Sullivan. Thank you, Senator Kaine.
    We have a very robust mil-to-mil relationship with the 
Republic of Ghana. In fact, we recently signed a Defense 
Cooperation Agreement that will deepen that shared interest in 
regional security. Ghana has had an outsized positive influence 
on regional security from early days of independence. I had the 
pleasure, when I was serving in Ghana previously, to work on 
the first peacekeeping training that the United States did, 20 
years ago. And----
    Senator Kaine. When you were there in '97 to '01?
    Ambassador Sullivan. That is right. And there is a vast 
array of engagements, from exercises to a fabulous state 
partnership program, with the North Dakota National Guard, to, 
also, exchange programs and training, capacity-building--in 
many areas, not just peacekeeping. We have the Security 
Governance Initiative that focuses on border security, on 
maritime security, and cyber security. And this is developed in 
conjunction with Ghana's own steering committee, in terms of 
what they see as their needs. So, we have a very strong 
collaboration and a robust collaboration that I expect to 
continue.
    Senator Kaine. Great. Thank you. My--Ghana was one of the 
countries that my son was deployed in. But----
    Ambassador Hammer.
    Ambassador Hammer. Thank you, Senator Kaine. Appreciate the 
question.
    I spent the last couple of years on a detail at the 
National Defense University at Fort McNair, where much of the 
work that is done there is not only training and preparing our 
future leaders, but also international fellows from all around 
the world. It pains me to say, however, that, in the case of 
the Democratic Republic of the Congo, we do not have a 
relationship--mil-to-mil relationship, to speak of. And the 
reason is because of the gross violations of human rights, that 
the FRDC is--has carried out. However, we do have very specific 
military assistance programs that are designed to help with the 
military justice system that involves human rights training and 
understanding that, in fact, impunity must not be tolerated, 
that those who commit abuses of human rights and crimes against 
humanity should be held accountable.
    I hope that, during my tenure there, if confirmed, we can 
get to a point where we can help truly professionalize the 
Congolese military to the point that we would have the 
confidence--of course, with appropriate Leahy vetting and Leahy 
vetting-plus, if you will--to make sure that--again, that we 
are professionalizing a military that can serve the Congolese 
people in the way that they would expect, with utmost respect 
for human rights. And that, again, would be, I think, useful in 
the long term. But, we are not--nowhere near there. And we will 
have to continue to urge, again, improvements on the human 
rights front, if confirmed.
    Senator Kaine. Thank you for that answer.
    Thank you, Mr. Chair.
    Senator Isakson. Thank you, Senator Kaine.
    Senator Booker.
    Senator Booker. I am happy to defer to Senator Coons, if 
you would like to get some more questions in, sir.
    Senator Isakson. Okay. I have got a few that I am going to 
get in, too.
    Senator Booker. Then, sir, I will defer to you. Well-
    Senator Isakson. You do not have to defer to me. I will 
just defer to you. [Laughter.]
    Senator Booker. I have--sincerely, I am honored. I loved 
co-chairing this committee with Senator Flake, and it is 
extraordinary where he is right now, and I am--and we are 
really grateful for what he has done in his work as Chairman of 
this committee. I recognize Senator Inhofe, who is sitting back 
there, is just such an extraordinary man who--I have had the 
privilege of going to his hideaway. He feeds me and gives me 
fellowship, which I deeply appreciate. And I have an old 
saying, ``This is--before you tell me about your religion, 
first show it to me in how you treat other people.'' And 
Senator Inhofe and his record in Africa speaks for itself and 
shows his deep faith and love of God's children. And I am 
grateful. But, today, I am really grateful to be sitting next 
to you, sir.
    Senator Isakson. I am proud to be here with you.
    Senator Booker. Thank you, sir. Thank you.
    I had a really good conversation with Mr. McCarter who was 
gracious to sit with me in my office. And I want to acknowledge 
what your family has done in showing their faithfulness, the 
incredible work that you have done to save lives, frankly, and 
to affirm the dignity of all people. And I do not want to 
diminish that. I know you have been receiving questions from my 
colleagues that were completely justified, and I want to follow 
on some of those line of questions. But, I want to start by 
saying that, in the same way that Senator Inhofe has, your 
family has done extraordinary work, and you have shown an 
extraordinary commitment in certain areas.
    We all are, as you were, an elected leader. And I certainly 
have said things that I wish I had said better, and been taken 
out of context and did not reflect my heart. And so, I am in 
that game, as well. And I am sure you are.
    I do want to revisit, though, your record regarding the 
LGBT community for which I feel a great degree of concern in 
our own country because of the violence and discrimination that 
young LGBT youth face. I was always amazed that my dad, who 
would if he was in a room and there was somebody off alone at a 
party, he would go over and sit with that person for a long 
time, making them feel special. When we were in restaurants or 
in department stores or in grocery stores, he would find the 
people that were being marginalized or ignored. And I would be 
stuck waiting on my dad, because he seemed to--so 
enthusiastically talking to folks.
    And as I got older, I began to understand that my father 
had this sense that, you know, you need to love everybody, but 
you have to have a more activist love towards those people who 
are discriminated against. It is not enough to say, ``I am not 
a--do not discriminate.'' It is not enough to say, ``I am not a 
racist.'' That you have to be antidiscrimination, you have to 
be antiracism. And so, when it comes to LGBT community, it is 
not enough to say, ``Hey, I am going to treat everybody 
equal.'' Somehow, you have got to balance the scales.
    And, you know, when I read your comments--and you were so 
gracious, because you brought this up to me yesterday before I 
even talked about it--but, you opposed not just same sex 
marriage, an issue on which I understand we can disagree, but, 
when it came to same-sex couples adopting, it seemed like you 
were opposing that. You seem to oppose laws that would have 
tried to deal with the bullying of LGBT youth. And so, I am 
wondering about that, as Senator Shaheen asked, and to which 
you did not really give a straight answer, now that you are 
going to a community that criminalizes that behavior. You told 
me, point blank, that you oppose that. She asked you to make a 
commitment to even meet with the leaders in the LGBT community, 
and you did not give her an answer. Do you feel the sense that 
you need to try to really work hard, especially given the 
comments that you may have made about LGBT communities, to try 
to affirmatively work against the ongoing discrimination in the 
country you are going to?
    Mr. McCarter. Senator, let me, first, go to one of the 
things you mentioned, about adoption. What I did in the State 
legislature was simply put back an amendment that was stated on 
the floor by my Democrat counterparts, that the Catholic 
Church, who is the largest adoption agency in the State, would 
still be able to continue working. And that was made very clear 
on the floor, yet, when the law was passed, they were put out 
of business and had to reorganize. And so--I am not a Catholic, 
myself. I did that because there were so many--there were--this 
was the largest pool of families that were willing to adopt and 
foster. We had to--I felt that we needed to protect that group. 
Now, it was against their conscience to adopt to, and foster 
to, same-sex couples. So, I simply put back an amendment that 
everyone had agreed to on the floor, my Democrat--by the 
Democrats, themselves--Senator Haine--and--actually, what 
happened is, I really got kind of left out in the cold there. I 
did what I thought was right. I did, for those people, so that 
we could have--we could have hundreds and thousands of homes to 
go to, and then it went nowhere. I felt a little bit betrayed. 
But, I believe I did the right thing.
    Now, I have been known for meeting with anyone. If you want 
to--if you want me to go back to the actual question, I will. 
Yes, I will meet. Yes, I meet--even when the death penalty was 
being discussed in Illinois, and I voted against it, I had the 
most spirited, interesting meetings with those that were--
wanted to abolish it, because I was open to hearing from them. 
Because, you know what? I could be wrong at times. I admit 
that. And that is why I am willing to listen.
    So, in this situation, I am telling you I am absolutely 
willing to listen, and at any time.
    Senator Booker. So, to Senator Shaheen's question--direct 
question to you, Would you commit to meeting with leaders----
    Mr. McCarter. Yes.
    Senator Booker. The answer is yes.
    Mr. McCarter. Yes, sir.
    Senator Booker. Thank you, sir.
    I am over my time. I thank you very much, Mr. Chairman.
    Senator Isakson. Thank you, Senator Booker.
    Senator Coons.
    Senator Coons. And thank you, Chairman Isakson, Ranking 
Member Booker.
    I wanted to make sure I also ask some questions of 
Ambassador Sullivan, if you will forgive me, because I have 
been to Ghana, I think, three times now. It is a country of 
particular interest and concern to me. And I was talking with 
Ambassador Hammer about the importance of possibly having the 
first free and fair elections, peaceful transition in DRC. 
Ghana has had, I think, seven peaceful presidential and 
parliamentary elections since the return of multiparty 
democracy in '92. Our government provided about 7, 7 and a half 
million in funding to help make possible free, fair, and--
elections through the Electoral Commission, the National Peace 
Council, Civil Society. Was that a good investment? Do we get a 
good return on investment when we provide that kind of support 
for election systems and for election processes? And how does 
having regular free and fair elections contribute to the 
development and progress of Ghana as a republic?
    Ambassador Sullivan. Thank you, Senator Coons. And thank 
you for your strong interest in Africa, and support.
    I think, yes, simply, it is an excellent investment. One 
election does not a democracy make. And I think it is very 
important to continue to develop the local systems that will 
enable us to graduate from providing that type of electoral 
assistance. I think a prerequisite is the political will. I was 
there for the third such election, and it was, in fact, the 
first handover from one democratically elected government to 
another of a different party. And that was a pretty amazing 
time to be there. So, it is very heartening to see how Ghana 
has continued in its positive democratic trajectory.
    And what has flowed from that--and when you asked about the 
benefits of that, and also, I would say, respecting the term 
limits have downstream benefits in improving the investment 
climate, reassuring investors, both local and foreign, that the 
rule of law will be respected, letting politicians know that, 
``It did not work out this time, you have another chance in 4 
years.'' Ghana had a history of coups. And the fact that they 
have pulled themself out of it is amazing and a really 
wonderful example for not just the ECOWAS region, but elsewhere 
in the continent. And, as I mentioned in my testimony, Ghana 
has long been a leader on the continent. And I would, if 
confirmed, work with the authorities in Ghana to help amplify 
their positive example for other countries in the region.
    Senator Coons. Thank you.
    Ambassador Sullivan. Thank you.
    Senator Coons. My most recent visit there, I had a chance 
to meet with President Akufo-Addo and was impressed with his 
skills and ability, with their commitment to peacekeeping 
regionally. And I could not agree more with you that, as more 
and more countries in West Africa have transitioned from 
countries with coups or strongmen to free and fair elections, 
you have seen a ripple effect that has been wonderfully 
positive. I also visited the Gambia, which is, I think, the 
last West African country to transition to having free and fair 
elections.
    I want to ask Ambassador Hammer a question about MONUSCO, 
if I might, before I conclude.
    But, Mr. Tapia, if you might, you mentioned energy and the 
energy mix in Jamaica, and concerns about resiliency. The 
Caribbean has suffered through a series of devastating 
hurricanes. Our own Puerto Rico and the Virgin Islands are 
still struggling to restore power. If confirmed as Ambassador, 
how might you help Jamaica advance towards a more resilient and 
sustainable electrical system for its future?
    Mr. Tapia. Senator, you are correct about the weather 
conditions and so forth that takes place in Jamaica. The USAID 
is now in the process of formulating a program to work with the 
Jamaican Government and so forth to build resiliency for the 
primary hurricanes and so forth. I would support the USAID 
position very robustly to work with them on--in serious part 
that can bring devastation to the people, to the country, and 
to the interests of the United States.
    Senator Coons. It is an area where I think an ounce of 
prevention is worth a pound of cure, so I hope you have the 
opportunity to work along with USAID in delivering that.
    If I might, last question, Ambassador Hammer, just--MONUSCO 
is the largest, most expensive, one of the longest-running 
peacekeeping missions in the world. It had a change to its 
mandate that allowed it to be more proactive, and that helped, 
I think, somewhat in far-eastern DRC, particularly dealing with 
some of the residual forces that have bedeviled relations with 
Rwanda.
    Any thoughts on how you might see changes to its authorized 
troop ceiling it has mandated, and what role it could or should 
play in further stabilizing conditions in DRC?
    Ambassador Hammer. Thank you, Senator.
    And you are absolutely right that MONUSCO has a very 
important mission to try to provide for the security of the 
Congolese people and, at the same time, also assist with the 
electoral process. I will not--I have not had a chance yet to 
have discussions with our Ambassador to the United Nations, 
Nikki Haley, to get her views. And it obviously does not fall 
within purview alone. Absolutely, it would be something that we 
would do--all do in consultation. And, if confirmed, I would 
provide my views from the field, from Kinshasa. And we are all 
interested in a efficient and effective MONUSCO mission, which 
is extremely challenging, as you pointed out, with a country 
the size of Europe, the size of the United States east of the 
Mississippi, with over 100 armed groups terrorizing people 
throughout the country, not only in eastern continental, but 
the--what we have seen in--more recently in the--region. It is 
something that we need to, of course, always be taking a look 
at how to improve, how can their operations become even more 
effective. And it is something that, again, once I am out there 
and have an opportunity to see them in action and to talk to 
more of the experts to see what is necessary, going forward--
but we should also recognize that this is such a tremendous 
humanitarian crisis ongoing, with 13 million people in need of 
humanitarian assistance, 4.5 million internally displaced, and 
absorbing 530,000 refugees from other countries. The problems 
are rather severe. And so, even though that is not their 
primary function, providing some level of security and 
stability is a key factor that, of course, we should continue 
to support.
    Senator Coons. Well, thank you.
    I appreciate your letting me run over, Mr. Chairman.
    Thank you all, to you and your families, for your 
willingness to take on this service on behalf of our Nation.
    Thank you, Mr. Chairman.
    Senator Isakson. And I am going to adjourn the meeting in 
just a second, but I have waited to the end for a reason.
    I had a thought cross my mind, I did not think I would have 
had it cross my mind, but when it works, I like to cash in on 
it, if I can.
    Mr. McCarter, your testimony was tough, and the questions 
were tough. And I have seen--had some issues in my statement, 
in the past few years, where people have responded to questions 
or made statements using Facebook or the Internet or some other 
medium of communication like that. It is instantaneous, that 
you cannot take it back, that, once it is gone, it is gone, and 
came close to ruining their entire career, because they did not 
think of it in the context of: Someday somebody might read this 
in a public forum.
    We had a case in Georgia, just recently, pretty--got a lot 
of attention, where a guy said he was tricked. He would have 
never said something if he had not been tricked. I have a 
little sign on my mirror on my bathroom in my home. It says, 
``Remember, stupid, everything is either a camera or a 
recording device.'' And it is up there because I have walked 
out of about every kind of meeting you can walk out of, and 
found people who had already taped what I said, and had 
reporters calling me about what I said. So, your words have 
meaning, and they are important.
    I will make you a suggestion that I do not know if it is 
appropriate for me to ask this, but I think it is, given the 
sincerity of the questions that were asked by Senator Shaheen 
and the others, as well as what I think will be a good word to 
those who want to subscribe one day to be an Ambassador. I 
would like to send me, or then send the committee, just a note, 
and take the things that you said, that you had not prepared to 
say, but, when you answered those questions, you said, and 
reduce that to writing to the committee addressing the 
question, for example, of putting somebody in jail or things 
like--I understand--if I am an Ambassador, I understand words 
have consequences, and I understand I may have said some things 
that did not--I think it is--if you do that once for all of us, 
for me and everybody else--it is a internal warning, because 
all of us have the tendency sometimes to get enamored with our 
popularity or our position, and respond in an environment that 
we feel real comfortable in, that, when struck back from that 
comfort, we probably should have never said what we said. It 
really did not reflect the way we meant it.
    So, I think, in fairness to you, as well as to the Senators 
that raised the question--and I am one of those raising the 
question--if you would just jot down your thoughts, in the next 
day or two, to get them to the committee, it would be very 
helpful to memorialize what I thought were excellent responses, 
personally, and willing responses. So, if you would do that for 
me, I would appreciate it.
    Mr. McCarter. I will do that, sir, thank you.


    [The information referred to above was not received when 
this transcript was printed.]


    Senator Isakson. And thank you for your willingness to 
serve.
    And, you know, I feel sorry for Mr. Tapia, you have not 
been asked any questions to speak of. [Laughter.]
    Senator Isakson. So, I am going to ask you a question. You 
a golfer?
    Mr. Tapia. No.
    Senator Isakson. You are not. [Laughter.]
    Senator Isakson. Well, you brought up the Augusta National 
Golf Club in Augusta, Georgia, and I think, if you brought that 
up, you--at a hearing about being an Ambassador to Jamaica, 
surely golf must be a big deal for you. But, it is not?
    Mr. Tapia. Well, Senator, I happened to be there at Augusta 
when Bubba Watson won the Masters Award. And that was a 
question. And I have always kept it, and I have kept it in my 
own heart of how I have lived my life. And thank you for that 
question.
    Senator Isakson. Well, let me tell you why I said it, 
because what you just said, about how you live your life, is 
very important. My father used to tell me, he said, ``You know, 
son, if you do not swing the club, you never know whether you 
are going to get a hole in one or not.'' And what you said--
with the way you said what you said about Augusta and 
everything else, and then what you just said about yourself, 
that is true for all of us, and it applies to what I was 
talking to Mr. McCarter about. Everything has meaning, and 
everything is important. And you are never going to know how 
impactful your words can be unless you are going to use them. 
And if you do use them, and they cause an impact, you will 
learn a lesson from them, good or bad, one way or another.
    So, it is very important to understand that life is about 
lessons, all of us get them. And I thought sure you were going 
to be a member of some great golf course I could get you to 
take me on one of these days. I do not know that either you or 
I are going to live that long anyway, so we will not worry 
about that. I just congratulate you on your nomination and 
thank you all for your participation. We wish you the very 
best. I do not know when the committee meeting is going to be 
held for the markup, but we will have it sometime soon, I am 
sure.
    Any other questions? [No response.]
    Senator Isakson. If not, the hearing is adjourned.


    [Whereupon, at 4:15 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
                Donald Tapia by Senator Robert Menendez

    Question 1. What will be your priorities in Jamaica if confirmed as 
Ambassador?

    Answer. If confirmed, my top priority will be ensuring the welfare 
of U.S. citizens visiting and living in Jamaica. To that end, we will 
work closely with the Jamaican Government to cooperate on addressing 
security concerns in and around the country. Enhanced security not only 
serves everyone in the country but also, given proximity to the United 
States, serves U.S. national interests. We will work together with the 
Jamaicans to combat the trafficking of people, weapons, and drugs.
    If confirmed, I will also focus on our vibrant bilateral economic 
relationship. In 2017, the United States had a $1.8 billion goods trade 
surplus with Jamaica. Over the last four years, U.S. firms have 
invested more than $1 billion in Jamaica, mostly in energy, a field 
where there is potential for great growth. If confirmed, I will work 
with my colleagues at Embassy Kingston and in Washington to increase 
our bilateral trade and investment ties and continue to help Jamaica 
diversify its energy sources. I look forward to continuing our work 
with the Government of Jamaica to help it achieve its prosperity goals.

    Question 2. In June 2017, the State Department submitted a 
multiyear strategy for the Caribbean (required by the United States-
Caribbean Strategic Engagement Act of 2016, P.L. 114-291) that 
established a framework to strengthen U.S.-Caribbean relations. Could 
you tell us about the main components of the U.S. strategy for 
Caribbean engagement and how they are being implemented in Jamaica? As 
Ambassador, what recommendations would you make for increasing U.S. 
engagement with Jamaica?

    Answer. If confirmed, I will seek out essential input and 
cooperation from Jamaica to build upon our Caribbean 2020 strategy. On 
security, if confirmed, I will support the Caribbean Basin Security 
Initiative and prioritize maritime security and capacity-building in 
counter narcotics and law enforcement. I will also highlight private 
sector engagement and sustainable growth in a second Prosperity 
Roundtable with Jamaica and our other Caribbean partners in 2018. I 
will continue our work with the Jamaicans towards diversification of 
energy supplies away from a single fuel source and promotion of U.S. 
exports, particularly natural gas and renewable-energy technology, as 
primary objectives for promoting Caribbean energy security.

    Question 3. How would you assess bilateral cooperation with Jamaica 
on anti-drug trafficking efforts? What type of anti-drug support has 
the United States provided Jamaica under the Caribbean Basin Security 
Initiative or CBSI, and what have been the results?

    Answer. Our bilateral cooperation with Jamaica on anti-drug 
trafficking efforts is strong. The United States supports a wide range 
of efforts designed to reduce illicit drug trafficking through the 
Caribbean Basin Security Initiative (CBSI). CBSI support to Jamaica 
includes training, equipment, and logistical assistance for 
interdiction of narcotics and enhancing Jamaica's maritime law 
enforcement capabilities. Our Drug Enforcement Administration, 
Department of Homeland Security, and U.S. Coast Guard work effectively 
on joint operations and information-gathering to detect and dismantle 
drug trafficking organizations. Jamaican authorities, supported by U.S. 
Government assistance, increased the frequency of land-based cocaine 
seizures in 2017 and made significant investments in capabilities to 
detect and interdict maritime trafficking. If confirmed, I am committed 
to strengthening this partnership to combat drug trafficking through 
Jamaica and the region.

    Question 4. Human rights organizations in the past have criticized 
pervasive homophobia and targeted violence against the LGBT community. 
How would you assess the current human rights situation of the LGBT 
community in Jamaica?

    Answer. In most of the Caribbean Basin, including Jamaica, 
consensual same-sex adult conduct is criminalized under colonial-era 
laws. Discrimination in employment, unequal access to health care, the 
inability for transgender persons to change their gender or birth name 
on government IDs to match their identity, and violence against 
lesbian, gay, bisexual, transgender, and intersex (LGBTI) persons all 
present challenges to advancing the inclusion and human rights of LGBTI 
persons in Jamaica. If confirmed, I will advocate that governments have 
an obligation to protect, respect, and uphold the dignity and 
fundamental freedoms of all people--including LGBTI persons. It is in 
the interests of the United States to promote, protect, and advance 
universal human rights.

    Question 5. The Chinese Government has invested $10 billion in 
Jamaica infrastructure projects to gain influence with the Jamaican 
Government. What is your assessment of China's efforts to establish a 
naval base and military presence from being established in Jamaica? 
What steps will you take to protect U.S. interests?

    Answer. My understanding is China currently has no military 
presence or naval base in Jamaica. We have robust mil-to-mil engagement 
with Jamaica to address common threats, including regional cooperation 
through the Caribbean Basin Security Initiative. If confirmed, I will 
continue to monitor this issue and advocate for the United States 
military as the partner of choice.
    While the United States remains Jamaica's preferred trade and 
investment partner, China has sharply increased engagement with Jamaica 
over the past decade. The lack of transparency in China's investment 
practices and its poor adherence to free market principles could 
undermine Jamaica's efforts to combat corruption. If confirmed, I will 
encourage Jamaica to adopt economic policies that are consistent with 
free market competition and transparency, responsible and sustainable 
financing arrangements, open and fair market access, and high standards 
of good governance.

    Question 6. In February, then-Secretary of State Tillerson spoke 
out against China's ``foothold in Latin America,'' where he maintained 
China was ``using economic statecraft to pull the region into its 
orbit.'' What is the extent of China's engagement with Jamaica? How 
will you work to support U.S. businesses in Jamaica?

    Answer. The United States is Jamaica's top trading partner. If 
confirmed, I will do everything I can to ensure this partnership 
continues. I will seek to improve the trade and investment climate for 
U.S. businesses in Jamaica through improved transparency and 
accountability, stronger protection of intellectual property rights, 
and more efficient border clearance procedures. I will also encourage a 
whole-of-government approach to providing U.S. businesses and Jamaican 
partners financing and project feasibility opportunities.

    Question 7. Petrojam-Jamaica's sole oil refinery, is 51 percent 
owned by the Jamaica Government, and 49 percent by PDVSA of Venezuela. 
Recent reports have Venezuela President Maduro skimming billions of 
U.S. dollars from PDVSA profits (some of which come from Petrojam). 
What is your position on requiring Jamaica to freeze PDVSA's share of 
Petrojam's profits in the short-term, and longer term, force PDVSA to 
sell its interst in Petrojam?

    Answer. The United States strongly supports Jamaica's efforts to 
achieve a secure and reliable energy sector, particularly in light of 
Venezuela's declining oil industry. If confirmed, I will support the 
diversification of energy supplies away from a single fuel source and 
the promotion of U.S. natural gas and renewable-energy technology 
exports, as these are the U.S. Government's primary objectives for 
Caribbean energy security.
    I understand Jamaica is in discussions with Venezuela regarding the 
purchase of PDVSA's shares of Petrojam. The Department supports 
Jamaican efforts to take the appropriate and necessary steps to ensure 
the safe and dependable operation of its refinery and other critical 
infrastructure in order to meet its domestic energy demand. If 
confirmed, I will continue the Department's and the embassy's 
engagement with the Jamaican Government on this issue and will continue 
to monitor developments.

    Question 8. Jamaica continues to be a gun, drug and human 
trafficking transit point in the Caribbean. What steps will you take to 
engage additional resources from the U.S. Justice Department (FBI), DEA 
and the Homeland Security to combat these problems? What steps will you 
take to encourage the Jamaican Government to crack down on corrupt law 
enforcement officials and others in government?

    Answer. U.S. law enforcement agencies are critical to our Mission's 
success in Jamaica and, if confirmed, I will encourage these agencies 
to allocate additional resources to combat drug, gun, and human 
trafficking in Jamaica. If confirmed, I will consistently engage with 
the Government of Jamaica regarding the need to reduce corruption and 
implement necessary anti-corruption reforms. I will promote law 
enforcement professionalization programs implemented by the Bureau of 
International Narcotics and Law Enforcement (INL). I will also explore 
every tool at the U.S. Government's disposal to hold corrupt officials 
accountable when and where it would further U.S. interests.

    Question 9. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. One of the most important actions I have taken in my career 
to promote human rights and democracy happens to be at the very 
beginning of my career-while serving our country in the United States 
Air Force. Additionally, and more recently, there are many times that I 
can look back at my time running Essco Wholesale Electric that I 
believe supported these important issues. Various instances come to 
mind such as hiring our company's first female CEO in 1992, long before 
many others in the industry were doing so, to ensuring that other 
members of our senior team (e.g., our Sales Manager) were from 
underrepresented groups. The fact that Essco was Arizona's largest 
Hispanic-owned business five years is something that we were both proud 
of and took very seriously. Additionally, two other major areas of 
focus for me as a leader included accepting LGBTI employees and 
supporting them as they were able to marry their spouses, and 
implementing zero-tolerance policies related to sexual harassment as 
well as other types of harassment, thereby promoting a work environment 
of acceptance no matter race, ethnicity, gender, creed, or way of life.

    Question 10. What issues are the most pressing challenges to 
democracy or democratic development in Jamaica? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Jamaica enjoys a strong and stable democracy and is taking 
definitive steps to address lingering corruption that challenges 
sectors of the Government and society. Jamaica has passed legislation 
and instituted an Integrity Commission to improve its ability to hold 
high-level officials accountable for corruption. The United States and 
Jamaica work together to combat concerns of corrupt ties between 
politicians and transnational criminals. These efforts are producing 
results, as Jamaica improved by 15 spots on Transparency 
International's Corruption Perceptions Index in 2017.
    Additional challenges include significant human rights issues, 
including violence against women; sexual assault and incest committed 
against young girls, including by gang members; trafficking in persons; 
criminalization of consensual same-sex sexual activity--although these 
laws are not enforced; and societal violence against LGBTI persons. If 
confirmed, I would champion existing embassy and other U.S. Government 
programs designed to address these and other human rights issues.

    Question 11. What steps will you take--if confirmed--to support 
democracy in Jamaica? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Jamaica, including political 
parties, human rights activists, religious groups, and watchdog 
organizations. I will champion existing embassy programs designed to 
foster democracy and human rights aligned to U.S. strategic interests. 
I will also engage directly with local leaders at all levels of society 
on resolving pressing democracy and human rights concerns.
    Jamaica enjoys a strong and stable democracy and is taking 
definitive steps to address lingering corruption that challenges 
sectors of the Government and society. Jamaica has passed legislation 
and instituted an Integrity Commission to improve its ability to hold 
high-level officials accountable for corruption. The United States and 
Jamaica work together to combat concerns of corrupt ties between 
politicians and transnational criminals. These efforts are producing 
results, as Jamaica improved by 15 spots on Transparency 
International's Corruption Perceptions Index in 2017.

    Question 12. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work with my USAID and public 
diplomacy colleagues at Embassy Kingston and our contacts in Washington 
to source funding to support democracy and governance in Jamaica via 
programming, public events, and grants to Jamaican NGOs, where 
applicable. I will prioritize programs that focus on combatting 
corruption, trafficking in persons, and domestic violence.

    Question 13. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Jamaica? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Jamaica, including human rights 
activists and religious groups. I will ensure the Department continues 
to thoroughly vet all individuals and units nominated to participate in 
U.S.-funded security assistance activities, in accordance with the 
Leahy law. If there are findings of credible information regarding 
gross violations of human rights, I will take the necessary steps in 
accordance with the law and Department policy to ensure those 
implicated do not participate in U.S.-funded assistance. To the extent 
possible, I will also urge that the perpetrators of gross violations of 
human rights be held accountable.

    Question 14. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I commit to meet with all Jamaican 
democratically elected political opposition figures and parties. In my 
interactions with Jamaican officials, I will emphasize the importance 
of a free, open, and fair political system as the basis to modern 
democracy. I will also advocate for the inclusion of underrepresented 
and historically marginalized groups, including women, minorities, and 
youth, in political parties.

    Question 15. Will you and your embassy team actively engage with 
Jamaica on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Jamaica?

    Answer. The Jamaican media environment is free and dynamic and 
ranks high among countries that most respect freedom of information. If 
confirmed, I will support the continued freedom of the press as an 
essential pillar of democracy. I will commit to advocating for the 
rights of journalists in the print, broadcast, and digital space and to 
acknowledge publicly the rights of journalists. I will also fully 
support the U.S. embassy's efforts to preserve and strengthen the 
capacity of journalists, including training in investigative skills, 
transparency, and accountability in reporting, and digital security. I 
will work closely with interagency colleagues and the international 
community to broaden resources for start-ups and established media 
organizations. I look forward to meeting regularly with independent and 
local press in Jamaica to underscore my commitment to a free and well-
informed press.

    Question 16. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will support an inclusive approach by the 
embassy team to countering disinformation and propaganda by foreign 
state or non-state actors by engaging Jamaica's Government, civil 
society, and private sector. I stand ready to assist Jamaica's efforts 
to advance media literacy so the public can identify trusted news 
outlets that report on verifiable facts. Furthermore, I pledge to 
coordinate closely with interagency and international partners to 
ensure that threats from propaganda and disinformation in Jamaica are 
identified and countered swiftly and efficiently.

    Question 17. Will you and your embassy teams actively engage with 
Jamaica on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I, together with my embassy team, will 
actively engage with Jamaica on the right of Jamaican labor groups, 
including independent trade unions, to organize.

    Question 18. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Jamaica, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Jamaica? What specifically will you commit to do to help LGBTI 
people in Jamaica?

    Answer. If confirmed, I will commit to use my position to defend 
the human rights and dignity of all people in Jamaica, no matter their 
sexual orientation or gender identity. In Jamaica, homophobia is 
widespread; LGBTI persons continue to face discrimination and violence 
and are vulnerable to human trafficking. The law criminalizes 
consensual same-sex sexual activity.
    If confirmed, I will work to strengthen existing programs to build 
capacity in local civil society organizations to promote social 
inclusion and advance the human rights of LGBTI persons. I will also 
engage the Government regarding human rights issues in general, 
including the human rights of LGBTI persons.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Donald Tapia by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. One of the most important actions I have taken in my career 
to promote human rights and democracy happens to be at the very 
beginning of my career-while serving our country in the United States 
Air Force. Additionally, and more recently, there are many times that I 
can look back at my time running Essco Wholesale Electric that I 
believe supported these important issues. Various instances come to 
mind such as hiring our company's first female CEO in 1992, long before 
many others in the industry were doing so, to ensuring that other 
members of our senior team (e.g., our Sales Manager) were from 
underrepresented groups. The fact that Essco was Arizona's largest 
Hispanic-owned business five years is something that we were both proud 
of and took very seriously. Additionally, two other major areas of 
focus for me as a leader included accepting LGBTI employees and 
supporting them as they were able to marry their spouses, and 
implementing zero-tolerance policies related to sexual harassment as 
well as other types of harassment, thereby promoting a work environment 
of acceptance no matter race, ethnicity, gender, creed, or way of life.

    Question 2. What are the most pressing human rights issues in 
Jamaica? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Jamaica? What do 
you hope to accomplish through these actions?

    Answer. The most significant human rights issues include violence 
against women; sexual assault and incest committed against young girls, 
including by gang members; trafficking in persons; criminalization of 
consensual same-sex sexual activity (although these laws have not 
recently been enforced); and societal violence against LGBTI persons.
    If confirmed, I would champion existing embassy and U.S. Government 
programs designed to address these and other human rights issues. One 
positive example of this is the United States--Jamaica Child Protection 
Compact Partnership, recently signed by both our governments to combat 
child trafficking in Jamaica.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Jamaica in 
advancing human rights, civil society and democracy in general?

    Answer. Domestic crime, corruption, and an overburdened judicial 
system are the biggest obstacles to progress on human rights in 
Jamaica. Although the Government has taken some steps to investigate, 
prosecute, and punish officials who have committed human rights abuses 
or violations, a general sense of impunity remains, particularly with 
respect to credible allegations of unlawful killings by agents of the 
state.
    Jamaica's challenge is to promote respect for the rule of law with 
its limited resources while respecting human rights in a high-crime 
environment. If confirmed, I will work with my embassy staff to augment 
existing training programs for Jamaican justice sector officials, 
encourage plea bargaining and case management reforms to reduce the 
backlog of criminal cases, and promote the role of civil society to 
strengthen human rights and governance.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Jamaica? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Jamaica, including human rights 
activists and religious groups. If confirmed, I will ensure the 
Department continues to thoroughly vet all individuals and units 
nominated to participate in U.S.-funded security assistance activities, 
in accordance with the Leahy law. If there are findings of credible 
information regarding gross violations of human rights, I will take the 
necessary steps in accordance with the law and Department policy to 
ensure those implicated do not participate in U.S.-funded assistance. 
To the extent possible, I would also urge that the perpetrators of 
gross violations of human rights be held accountable.

    Question 5. Will you and your embassy team actively engage with 
Jamaica to address cases of key political prisoners or persons 
otherwise unjustly targeted by Jamaica?

    Answer. While last year's State Department Human Rights Report 
notes there were no reports of political prisoners or detainees in 
Jamaica in 2017, I will, if confirmed, work actively with the embassy 
team to address any cases of political prisoners or persons unjustly 
targeted by government entities to ensure their rights and fundamental 
freedoms are respected.

    Question 6. Will you engage with Jamaica on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage with Jamaican Government 
officials at all levels as well as civil society to advance U.S. 
interests as they relate to human rights, civil rights, and good 
governance. Jamaica is a democracy that has seen free, fair, and 
transparent elections over the past several decades and it has an 
effective system of checks and balances and a free press. It still 
faces challenges with respect to human rights, including a high level 
of police-involved fatalities, violence against women, gender-based 
violence, and discrimination against LGBTI persons, though there has 
been some progress in these areas.
    In terms of governance, Jamaica still grapples with corruption 
within some of its agencies and among officials. I am committed to 
using my private sector experience to work with the Government and 
civil society to help Jamaica make progress in this area. Addressing 
these challenges will help Jamaica improve its security and business 
climate, which in turn will make it more appealing for U.S. investment.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Jamaica?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Each of my enterprises has thrived off the power of diverse 
perspectives and wide-ranging networks while pinpointing a shared 
purpose. I have often used a model, method, and tool called purpose 
driven action (PDA), which runs us through a process of articulating a 
clear purpose, visualizing success, evaluating all risks that could be 
externally or self-imposed (ignorance or bias is often one of them), 
listing strategies based off of compensating for risks and building off 
of strengths, and then defining next actions. The entire process is 
iterative and dynamic. Most of all, it clarifies the mission, mitigates 
lazy or biased thinking, and draws from different points of view. After 
the PDA process has run, we share our results and thinking with 
colleagues, conducting a full audit of the array of perspectives and 
allies from which we could draw. We challenge ourselves to come up with 
ideas that someone might not have ever thought of, and those who 
introduce the most unconventional ideas are celebrated. No action, 
goal, or initiative is done without the PDA and peer review. After 
building a diverse team, the fruits of creativity through diversity 
come to bear and create a virtuous cycle that takes vigilance.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, from my first day at Post, I would promote 
and encourage staff meetings with leadership and management to 
establish and encourage diverse education, awareness, and integration 
of various backgrounds, culture and diversity. I would also ensure that 
supervisors had the tools they need to foster and grow a diverse and 
inclusive environment-whether it was additional training, engagement 
from me, or anything else, there would be no question that diversity 
and inclusiveness would be key priorities for me and something I would 
value greatly in my team.

    Question 12. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Jamaica enjoys a strong and stable democracy and is taking 
definitive steps to address lingering political corruption that 
challenges sectors of the Government and society. Jamaica has passed 
legislation and instituted an Integrity Commission to improve its 
ability to hold high-level officials accountable for corruption. The 
United States and Jamaica work together to combat concerns of corrupt 
ties between politicians and transnational criminals. These efforts are 
producing results, as Jamaica improved by 15 spots on Transparency 
International's Corruption Perceptions Index in 2017.

    Question 13. What is your assessment of corruption trends in 
Jamaica and efforts to address and reduce them by the Government of 
Jamaica?

    Answer. While Jamaica still struggles to hold high-level officials 
accountable for corruption, it has made progress passing legislation 
and building institutions such as its newly established Integrity 
Commission. Jamaica improved by 15 spots on Transparency 
International's Corruption Perceptions Index in 2017. Jamaica is 
committed to improving its standing through new anti-corruption 
initiatives.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Jamaica?

    Answer. If confirmed, I will make it a priority to work with the 
many ministries and agencies of the Jamaican Government and civil 
society to combat corruption. If confirmed, I commit to evaluate ways 
to strengthen our anti-corruption and good governance programming, 
especially regarding customs, policing, and government procurement 
systems.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Hon. Stephanie S. Sullivan by Senator Robert Menendez

    Question 1. What is your assessment of how pervasive public sector 
corruption is in Ghana? Where are the biggest vulnerabilities to 
corruption in the public sector? Is corruption significantly impeding 
development and economic growth?

    Answer. Pervasive public sector corruption not only has a negative 
impact on democratic governance and the rule of law but on economic 
growth and the overall investment climate in Ghana. Fiscal indiscipline 
and unaccountable public financial management systems pose a critical 
threat to economic growth and democratic governance. Additionally, 
concerns around enforcement of contracts, non-transparent bidding 
processes, and inconsistent local content policies damage Ghana's 
ability to attract more foreign direct investment. Strong, accountable, 
and democratic institutions, sustained by a deep commitment to the rule 
of law, are needed in order to generate greater prosperity and 
stability.

    Question 2. What is the status of the Office of the Special 
Prosecutor in Ghana? Is the office properly resourced to undertake its 
mandate?

    Answer. This year, Ghana created an Office of the Special 
Prosecutor to investigate and prosecute categories of cases and 
allegations of corruption and other criminal wrongdoing, including 
cases implicating public officers and politically exposed persons. The 
establishment of this office is a critical step in stamping out 
corruption. Formally establishing the office has been slow process. 
Although a deputy and a nine-member governing board that directs the 
affairs of the office have been appointed, the office lacks office 
space and a budget. It remains unclear if the office will have 
dedicated investigators assigned to pursue corruption-related crimes or 
if they will rely on referrals from existing law-enforcement bodies. In 
accordance with the Act of Parliament creating the Office of the 
Special Prosecutor, the oversight board is charged with ensuring the 
office is properly resourced and continues to undertake its mandate.

    Question 3. What steps will you take, if confirmed, to help the 
Government's attempts to combat corruption?

    Answer. If confirmed, I will continue to support anti-corruption 
activities that build investigative capacities and strengthen the rule 
of law. Those efforts will include the addition to the Embassy team of 
an FBI special agent tasked with providing training and assistance to 
the Office of Special Prosecutor to aid in the investigation and 
prosecution of corruption-related crime.

    Question 4. What specific actions is the U.S. Government taking to 
assist Ghana's anti-trafficking efforts? Do we train law enforcement on 
evidence collection in trafficking cases? Is the United States 
providing any training to prosecutors and judges to help them pursue 
cases under the anti-trafficking act?

    Answer. The U.S. Government continues to offer assistance to the 
Government of Ghana to improve its anti-trafficking efforts. The U.S.-
Ghana Child Protection Compact (CPC) Partnership is a jointly-
developed, five-year plan signed in 2015 that is bolstering efforts of 
the Ghanaian Government and civil society to address child sex 
trafficking and forced child labor within Ghana. The first of its kind, 
this Partnership facilitated the award of $5 million in U.S. foreign 
assistance to two implementing partner organizations that work 
collaboratively with Ghanaian police, prosecutors, social workers, and 
NGOs to combat child trafficking in three regions (Volta, Central, and 
Greater Accra). To date, the partners have trained 500 government 
officials, including police and immigration officers, prosecutors, and 
judges; facilitated the development and endorsement of comprehensive 
Standard Operating Procedures on Identification and Referral of 
Trafficking Victims and Investigation and Prosecution of Trafficking 
Cases; and reached 11,000 people through awareness raising activities, 
resulting in the arrest of 14 perpetrators, two convictions, and the 
removal of 183 children and 14 adults from trafficking situations. One 
training series taught Ghana Police Service and Ghana Immigration 
Service investigators and prosecutors best practices for investigating 
and prosecuting human trafficking cases. A separate training focused on 
adjudicating human trafficking cases, targeted circuit and high court 
judges. The partners are also currently seeking to incorporate the 
training modules into curricula at local training institutions using a 
train-the-trainer approach.

    Question 5. What should the United States be doing to help Ghana 
collect and reporting on data related to investigations, and 
prosecutions as well as victims identified by enforcement and 
protection agencies, and any assistance provided to those victims?

    Answer. The United States has been actively engaged with NGOs and 
the Government of Ghana on collecting data related to investigations 
and prosecutions. The U.S.-Ghana Child Protection Compact (CPC) 
Partnership goals and objectives include establishing a more holistic 
approach to improving effectiveness and coordination of government and 
civil society anti-trafficking prosecution and protection efforts; 
enhancing Ghana's capacity to record data on these activities; 
expanding specialized services for child trafficking victims; and 
increasing public awareness of the nature of child trafficking and its 
devastating impact on children. Through the CPC Partnership, 
implementing partners are also assisting the Government to develop and 
adopt systematic trafficking data collection that will enhance the 
Government's ability to monitor and report on anti-trafficking 
activities.

    Question 6. What steps will you take, if confirmed, to help Ghana 
improve its efforts to combat trafficking in persons?

    Answer. If confirmed, I will encourage the Government of Ghana to 
continue to implement its anti-trafficking national action plan with 
dedicated resources, strengthen its legal framework to combat 
trafficking in persons, and devote adequate resources to law 
enforcement and social protection officers to effectively investigate 
and prosecute offenders, and provide services for child and adult 
trafficking victims.

    Question 7. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Ghana?

    Answer. If confirmed, I will ensure I brief Members of Congress 
and/or their staff when I am in Washington for visits or consultations 
during my tenure as Ambassador to Ghana.

    Question 8. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. While Ambassador to the Republic of Congo, I made numerous 
private demarches (including related to AGOA eligibility and our annual 
reports on Human Rights, Trafficking in Persons, and Child Labor) and 
public statements and speeches in support of human rights, free and 
fair elections, democracy, respect for the constitution and rule of 
law, as well as freedom of expression and association, as well as 
ending trafficking in persons and child labor. I believe that as a 
result of my actions and those of others, the Republic of Congo's new 
constitution (of 2015) included term limits, although the term 
limitation for the incumbent president was reset. I raised these topics 
with officials from other sub-Saharan countries both as Acting 
Principal Deputy Assistant Secretary for African Affairs and as Deputy 
Assistant Secretary for Central Africa.
    At Embassy Brazzaville, I created an Eligible Family Member 
position of human rights specialist in the political section. This 
enabled our Human Rights Report to be provide greater insights on the 
human rights situation outside the major cities, in particular with 
regard to the indigenous Baka people. Also in Brazzaville, I continued 
the annual African American film festival, which showed U.S. films that 
modeled peaceful civic action and persistence in the face of 
discrimination. I initiated an annual film festival promoting a free 
and responsible media for press freedom day, which led to the 
commitment on the part of the Government of the Republic of Congo to 
hold a national stocktaking of the state of the media. I revived and 
advanced a multi-year project to have Voice of America transmit in 
Brazzaville, which will provide a credible source of information in a 
largely government-controlled media landscape; the transmission debuted 
in July 2018.
    I organized Embassy election observation missions during my tenure 
in Cameroon, Ghana, and the Republic of Congo, and supported other 
observation efforts from the Bureau of African Affairs. In part as a 
result of these efforts, countries knew the United States was paying 
attention.
    While in Ghana as Political Chief, ?after I saw multiple reports of 
police killings via ``stray bullets,'' I spearheaded a proposal for 
community policing training, that was approved and conducted during my 
time at post. I also became aware of a potential attack on a church 
service during a period in which there was traditional ban on drumming. 
I attended the church service, during which a mob attacked the church 
with cement blocks. I believe my presence as a U.S. diplomat deterred 
the attackers from inflicting worse damage than they did. I 
subsequently raised the attack with government officials in the context 
of religious freedom.

    Question 9. What issues are the most pressing challenges to 
democracy or democratic development in Ghana in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. One of the most pressing issues facing Ghana's democratic 
development is the winner-take-all political system in which the ruling 
president and party appoint office-holders as far down as the local 
mayor and city-council levels. Although Ghana's Government has pledged 
to address this by instituting direct local elections, progress has 
been slow. Female participation in politics is also extremely low, even 
by African standards. Addressing these issues, and the corruption that 
exists in all parts of the Government, will be among my first 
priorities for promoting democratic development if I am confirmed. 
Other issues in Ghana that challenge democracy include excessive use of 
force by police, including torture resulting in death and injuries, 
rape by police, harsh and life-threatening prison conditions, assault 
on and harassment of journalists, lack of accountability in cases of 
violence against women and children, including female genital 
mutilation, early and forced marriage, sexual exploitation of children, 
infanticide of children with disabilities, criminalization of same-sex 
conduct, violence against journalists, and forced child labor. However, 
despite these obstacles that the Government of Ghana must take steps to 
address, Ghana is one of the more established democracies in Africa 
with a strong commitment to democratic governance and the protection of 
fundamental freedoms, constitutional democracy, and a strong 
presidency. Ghana has held seven national elections since democracy was 
restored in 1992, and power has alternated between its two largest 
political parties.

    Question 10. What steps will you take--if confirmed--to support 
democracy in Ghana? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I would use all the tools in our diplomacy 
toolkit to advance the three policy goals of promoting development and 
trade, improving regional security, and strengthening good governance. 
In strengthening good governance, I would continue to support Ghana's 
efforts to increase women's participation in politics, and institute 
direct elections for local representatives. I would continue to work 
with the Government of Ghana and local civil society to combat 
corruption and increase transparency. I would also promote democracy 
and good governance in Ghana by supporting innovative institutions, 
such as Ghana's new Office of the Special Prosecutor to investigate 
corruption-related crimes. I believe that these kinds of actions will 
help tackle corruption in Ghana, which, in turn will improve the doing 
business rating, which will contribute to attracting foreign investment 
and freeing Ghana from dependence on foreign assistance.

    Question 11. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will use the resources of the State 
Department and USAID to advance democracy and good governance in a 
variety of ways. Ghana is not a recipient of the Democracy Commission 
Small Grants program, but through other programs, I would work with the 
Ghanaian Government to strengthen Ghana's democracy. We can use USAID 
programs that increase the capacity of civil society organizations; 
ensure free, fair, and peaceful elections; and support the inclusion of 
women and people with disabilities in political processes, while 
strengthening local government institutions. USAID also hosts a 
regional platform in Accra that enables it to extend additional 
programs and services to countries across West Africa, including Ghana.

    Question 12. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Ghana? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meet with human rights and other 
non-governmental organizations in the United States and with local 
human rights NGOs, and other members of civil society in Ghana to 
ensure that human rights for all Ghanaians are respected. A robust and 
diverse civil society is imperative for the achievement of a peaceful 
and prosperous Ghana, and assistance from NGOs and an engaged civil 
society are critical to supporting a healthy democracy and fostering 
human rights. If confirmed, I am committed to promoting and protecting 
the role of civil society as an essential element of citizen-centered 
democratic governance. In addition, I will support the work of 
Government of Ghana organizations, such as the Commission on Human 
Rights and Administrative Justice (CHRAJ), that work to ensure human 
rights, particularly for minorities such as the LGBTI population.

    Question 13. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes, I commit to meet with democratically oriented 
political opposition figures and parties. Democratically oriented 
political opposition is essential for a healthy democracy. If 
confirmed, I will encourage genuine political competition by working 
with the Ghanaian Government to increase transparency and ensure free 
and fair elections, by analyzing the country's electoral practices and 
media coverage. If confirmed, I will also advocate for access and 
inclusivity for women, minorities, and youth within political parties.

    Question 14. Will you and your Bureau leadership team actively 
engage with Ghanaian leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Ghana?

    Answer. Although the Ghanaian Government generally provides for the 
freedom of the press and Ghana has a vibrant media, each year there are 
isolated reports of physical attacks against journalists by law 
enforcement officers. If confirmed, I will actively engage with Ghana 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through a variety of measures. If 
confirmed, I will also commit to meeting regularly with independent, 
local press in Ghana. Ensuring the freedom and responsibility of the 
press and expression is essential to fortifying democratic 
institutions. Freedom of the press is legally guaranteed in Ghana, and, 
despite obstacles, the country has a diverse media landscape. I will 
work to ensure that Ghana continues to foster its reputation as one of 
the freest media environments in sub-Saharan Africa.

    Question 15. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. Yes, if confirmed, my embassy team and I will actively 
engage with civil society and government counterparts on countering 
disinformation and propaganda disseminated by foreign state or non-
state actors in Ghana.

    Question 16. Will you and your Bureau leadership team actively 
engage with Ghanaian interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. If confirmed, my bureau leadership team and I will actively 
engage with Ghanaian interlocutors on the right of labor groups to 
organize, to promote freedom of association, including strengthening of 
independent trade unions. I will work with the Ghanaian Government and 
worker organizations and unions in order to ensure the protection of 
internationally recognized workers' rights.

    Question 17. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Ghana, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Ghana? What specifically will you commit to do to help LGBTI 
people in Ghana?

    Answer. I commit to using my position, if confirmed, to defend the 
human rights and dignity of all people in Ghana, no matter their sexual 
orientation or gender identity. Ghanaians who are lesbian, gay, 
bisexual, transgender, or intersex (LGBTI) suffer widespread 
discrimination and abuse by government officials, as well as within 
society. The Government continues to criminalize consensual same-sex 
sexual conduct. Though the law is rarely enforced, it contributes to 
negative stigma against the LGBTI community. LGBTI individuals are 
frequently victims of violence and discrimination based on their sexual 
orientation or gender identity. While some Ghanaian officials have 
publicly called for an end to violence based on sexual orientation and 
gender identity, the Government has yet to repeal a colonial-era law 
that criminalizes consensual same-sex sexual activity. Ghana has not 
taken steps in recent years to stiffen penalties against consensual 
same-sex conduct or to expressly criminalize sexual relations between 
women. In order to help LGBTI people in Ghana, consistent with U.S. 
policy to oppose violence, discrimination, and the criminalization of 
LGBTI status or conduct, I will, if confirmed, work with Ghanaian law 
enforcement, government representatives, and organizations such as the 
Commission on Human Rights and Administrative Justice (CHRAJ) to 
promote the freedom, dignity, and equality of all persons, including 
LGBTI persons.



                               __________


     Responses to Additional Questions for the Record Submitted to 
        Hon. Stephanie S. Sullivan by Senator Benjamin L. Cardin

Ghana Child Labor
    Question 1. Child labor in Ghana's cocoa industry continues to be 
an issue of concern. According to the International Cocoa Initiative, 
an estimated two million children work in the cocoa industry across 
West Africa. Cocoa production is dangerous, physically demanding, and 
completely unsuitable for children. In 2017, a worldwide drop in cocoa 
prices sparked concern over an increase in child labor. While the 
Ghanaian Government has made commendable commitments to better supply 
chain monitoring and enforcement of child labor, and the Cocoa industry 
is making efforts to address the issue, fluctuations in cocoa pricing 
continue to be a challenge to child labor enforcement.

   What tools and resources is the Ghanaian Government lacking in 
        order to be implement anti-child labor efforts?

    Answer. The Ghanaian Government has made strides in combatting the 
worst forms of child labor in cocoa over the past two decades. The 
Government has been an active partner in efforts to implement the 
Harkin-Engel Joint Declaration on the worst forms of child labor in 
cocoa and its associated Framework of Action. In 2018, the Government 
finalized and launched the National Plan of Action Phase II for the 
Elimination of the Worst Forms of Child Labor in Ghana and continued to 
lead the National Steering Committee on Child Labor, both of which 
covered child labor in cocoa. The Government also continues to 
implement the National Program for the Elimination of Child Labor in 
Cocoa. Despite this progress, children in Ghana continue to engage in 
the worst forms of child labor, including in forced labor in fishing 
and cocoa harvesting. Inadequate resources, including funding and 
transportation, hamper the labor inspectorate's capacity to enforce 
child labor laws, particularly in the informal sector, where child 
labor is most common. The number of labor inspectors is likely 
insufficient for the size of Ghana's workforce. Enforcement of criminal 
laws related to the worst forms of child labor continues to be weak due 
to inadequate funding and limited training for criminal investigators. 
Lack of shelter capacity limits the ability of authorities to remove 
children from the worst forms of child labor. If confirmed, I will 
encourage the Government to continue to prioritize and expand its 
efforts to combat the worst forms of child labor in the cocoa sector.

    Question 2. If confirmed, how will you work with the Ghanaian 
Government to better regulate child labor and enforce child labor and 
trafficking violations in Ghana?

    Answer. The Government of Ghana has established institutional 
mechanisms for the enforcement of laws and regulations on child labor. 
However, gaps exist within the authority of the Ministry of Employment 
and Labor Relations that hinders adequate enforcement of its child 
labor laws. Ghana's Child Protection Compact (CPC) Partnership is a 
jointly developed, multi-year plan aimed at bolstering current efforts 
of the Government of Ghana and Ghanaian civil society to address child 
sex trafficking and forced child labor within Ghana. The first of its 
kind, this Partnership facilitates $5 million in U.S. foreign 
assistance to two implementing partners for activities in support of 
the U.S.-Ghana CPC Partnership. If confirmed, I will encourage the 
Government to continue to strengthen its legal framework for combatting 
child labor and the capacity of its labor inspectorate, as well as 
ensure law enforcement and social protection officers have adequate 
resources to effectively investigate and prosecute offenders, and care 
for victims.

    Question 3. How can we better prevent child labor in cocoa 
production from being vulnerable to economic fluctuations?

    Answer. Some children are subjected to forced child labor within 
Ghana in fishing, cocoa, domestic service, street hawking, begging, 
pottering, quarrying, artisanal gold mining, and agriculture.
    Ghana has taken steps to eliminate the worst forms of child labor, 
including working to design community action plans and provide 
livelihood services to female household members to reduce household 
reliance on child labor.
    The State Department has been actively engaged with other U. S. 
Government agencies, the Government of Ghana, the chocolate industry, 
the International Labor Organization and other international 
organizations and NGOs on the issue of the worst forms of child labor. 
If confirmed, I will speak out against exploitative child labor and 
trafficking and encourage greater monitoring and enforcement of 
existing laws. I will also continue to support ongoing initiatives that 
seek to address the underlying economic vulnerability that drives many 
families to engage their children in child labor and to encourage 
school attendance.

    Question 4. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. While Ambassador to the Republic of Congo, I made numerous 
private demarches (including related to AGOA eligibility and our annual 
reports on Human Rights, Trafficking in Persons, and Child Labor) and 
public statements and speeches in support of human rights, free and 
fair elections, democracy, respect for the constitution and rule of 
law, as well as freedom of expression and association, as well as 
ending trafficking I persons and child labor. I believe that as a 
result of my actions and those of others, the Republic of Congo's new 
constitution (of 2015) included term limits, although the term 
limitation for the incumbent president was reset. I raised these topics 
with officials from other sub-Saharan countries both as Acting 
Principal Deputy Assistant Secretary for African Affairs and as Deputy 
Assistant Secretary for Central Africa.
    At Embassy Brazzaville, I created an Eligible Family Member 
position of human rights specialist in the political section. This 
enabled our Human Rights Report to be provide greater insights on the 
human rights situation outside the major cities, in particular with 
regard to the indigenous Baka people. Also in Brazzaville, I continued 
the annual African American film festival, which showed U.S. films that 
modeled peaceful civic action and persistence in the face of 
discrimination. I initiated an annual film festival promoting a free 
and responsible media for press freedom day, which led to the 
commitment on the part of the Government of the Republic of Congo to 
hold a national stocktaking of the state of the media. I revived and 
advanced a multi-year project to have Voice of America transmit in 
Brazzaville, which will provide a credible source of information in a 
largely government-controlled media landscape; the transmission debuted 
in July 2018.
    I organized Embassy election observation missions during my tenure 
in Cameroon, Ghana, and the Republic of Congo, and supported other 
observation efforts from the Bureau of African Affairs. In part as a 
result of these efforts, countries knew the United States was paying 
attention.
    While in Ghana as Political Chief, after I saw multiple reports of 
police killings via ``stray bullets,'' I spearheaded a proposal for 
community policing training, that was approved and conducted during my 
time at post. I also became aware of a potential attack on a church 
service during a period in which there was traditional ban on drumming. 
I attended the church service, during which a mob attacked the church 
with cement blocks. I believe my presence as a U.S. diplomat deterred 
the attackers from inflicting worse damage than they did. I 
subsequently raised the attack with government officials in the context 
of religious freedom.

    Question 5. What are the most pressing human rights issues in 
Ghana? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Ghana? What do you 
hope to accomplish through these actions?

    Answer. Ghana has made important gains on human rights, fundamental 
freedoms, democracy, and institution building over the years and is one 
of the Continent's success stories; however, challenges remain, and 
democratic institutions must be supported over time. Continuing human 
rights issues in Ghana include reports of excessive use of force by 
police, including torture resulting in death and injuries; rape by 
police; and harsh and life-threatening prison conditions, including 
severe overcrowding. There have also been reports of some assaults on 
and harassment of journalists. There remains a lack of accountability 
in cases of harmful traditional practices, including forced expulsion 
from their communities of women accused of witchcraft; violence against 
women and children, including female genital mutilation/cutting; early 
and forced marriage; sexual exploitation of children; and infanticide 
of children with disabilities. The Government continues to criminalize 
consensual same-sex sexual conduct. Though the law is rarely enforced, 
it contributes to a negative stigma against the LGBTI communities. 
LGBTI individuals are frequently victims of violence and discrimination 
based on their sexual orientation or gender identity, including 
inadequate testing and treatment for HIV and other diseases, 
particularly among men who have sex with men. Human trafficking, the 
worst forms of child labor, and sexual exploitation of children are 
also concerns. If confirmed, I will work with the Government of Ghana, 
civil society members, and local human rights NGOs to ensure that human 
rights for all Ghanaians are respected. I am also dedicated to 
promoting the rule of law and strengthening democratic norms and 
institutions. Countries with strong, accountable, and democratic 
institutions, sustained by a deep commitment to the rule of law, 
generate greater prosperity and stability, and meet with greater 
success in mitigating conflict and ensuring security than their less-
democratic counterparts.

    Question 6. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Ghana in advancing 
human rights, civil society and democracy in general?

    Answer. One of the potential obstacles that may arise in addressing 
human rights issues in Ghana is the pervasive corruption in all 
branches of government. This year, Ghana created an Office of the 
Special Prosecutor to investigate corruption-related crimes, a critical 
step in stamping out corruption. If confirmed, I will support impartial 
anti-corruption activities that build investigative capacities and 
strengthen the rule of law.
    Another obstacle will be shifting negative cultural and social 
attitudes toward issues of discrimination against women, those with 
disabilities, and LGBTI persons and communities as well as ending 
exploitative child labor. If confirmed, I commit to working with 
members of civil society and NGOs, in part through USAID, to help shift 
attitudes about these harmful practices. Ensuring respect for human 
rights is essential to consolidating democracy in Ghana; therefore, I 
also will raise LGBTI issues in the context of broader human rights 
concerns and support and encourage the empowerment of local voices in 
support of LGBTI rights.
    Question 7. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Ghana? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I commit to meet with human rights and other 
non-governmental organizations in the United States and with local 
human rights NGOs, and other members of civil society in Ghana to 
ensure that human rights for all Ghanaians are respected. A robust and 
diverse civil society is imperative for a peaceful and prosperous 
Ghana. Assistance from NGOs and an engaged civil society are critical 
to supporting a healthy democracy and fostering human rights. If 
confirmed, I commit to promoting and protecting the role of civil 
society as an essential element of citizen-centered democratic 
governance. In addition, I will support the work of Government of Ghana 
organizations, such as the Commission on Human Rights and 
Administrative Justice (CHRAJ), that work to ensure human rights, 
particularly for minorities such as the LGBTI population.

    Question 8. Will you and your embassy team actively engage with 
Ghana to address cases of key political prisoners or persons otherwise 
unjustly targeted by Ghana?

    Answer. As of the 2017 Human Rights Report, there were no reports 
of political prisoners or detainees in Ghana. If confirmed, my embassy 
team and I will actively engage with the Government of Ghana to address 
cases of political prisoners or persons unjustly targeted should the 
issue arise.

    Question 9. Will you engage with Ghana on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I commit to engage the Government of 
Ghana on matters of human rights, civil rights, and governance. I will 
also work with human rights NGOs and civil society organizations in 
order to ensure these rights are respected and protected.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in Ghana?

    Answer. No.

    Question 13. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my Foreign Service career, I have served as a 
mentor to many colleagues, a role that holds the utmost importance for 
the development of the next generation of leaders, especially from 
underrepresented groups in Foreign Affairs agencies. Formal mentoring 
programs intended to help first and second tour personnel learn about 
the Foreign Service and to enhance their professional development are 
critical to strengthening the institution. I also believe in making 
myself available to hear the concerns and answer the questions of all 
my staff, both U.S. and local employees, at all levels.

    Question 14. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I believe that senior managers must themselves model 
inclusivity and respect for diverse backgrounds. This is critical in 
ensuring the Department reflects the great diversity of America. If 
confirmed, as the most senior U.S. Government official at U.S. Mission 
Ghana, I would require all personnel to demonstrate the same kind of 
respect for each other. I would encourage Embassy staff to remain open 
and willing to learn from each other and from our host nation 
interlocutors, modeling the best aspects of diplomacy to all. I would 
also urge hiring managers to consider diversity when filling positions.
Corruption

    Question 15. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Political corruption has a negative impact not only on 
democratic governance and the rule of law but on economic growth and 
the overall investment climate. Fiscal indiscipline and unaccountable 
public financial management systems can gravely impact economic growth 
and democratic governance, and undermine citizens' trust in their 
political leadership. Countries with strong, accountable, and 
democratic institutions, sustained by a deep commitment to the rule of 
law, generate greater prosperity and stability, and meet with greater 
success in mitigating conflict and ensuring security than their less-
democratic counterparts.

    Question 16. What is your assessment of corruption trends in Ghana 
and efforts to address and reduce them by the Government of Ghana?

    Answer. I believe the Government of Ghana understands that tackling 
corruption is essential for attracting foreign investment and freeing 
Ghana from dependence on foreign assistance. This year, Ghana created 
an Office of the Special Prosecutor (OSP) to investigate corruption-
related crimes, a critical step in stamping out corruption. The OSP now 
needs to be operationalized and conduct its business in an impartial 
manner. The Government of Ghana has also published its budget documents 
online and made audits of fiscal activities publicly available, both 
measures that support government accountability.

    Question 17. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Ghana?

    Answer. If confirmed, I would leverage our bilateral relationship 
to press for enhanced transparency in government, increased public 
awareness of reporting mechanisms for corruption, and robust efforts to 
investigate and prosecute corruption on an impartial basis. I would 
encourage the Government of Ghana to operationalize its new Office of 
the Special Prosecutor and empower it to conduct its business 
impartially, including potentially through offering training.
    I would also encourage the Government of Ghana to continue working 
to strengthen its anti-money laundering and counter terrorist financing 
safeguards, particularly improving investigation and prosecution of 
financial crimes, in accordance with recommendations of the 
international Financial Action Task Force. I would encourage it to 
adhere to the Extractive Industries Transparency Initiative. In 
addition, I would work to develop the professionalism of investigative 
journalists and to support their ability to work free from 
intimidation.



                               __________


     Responses to Additional Questions for the Record Submitted to 
        Hon. Stephanie S. Sullivan by Senator Benjamin L. Cardin

    Question 1. Ms. Sullivan, what is the scope and focus of Chinese 
investment and trade ties with Ghana?

    Answer. Trade and investment ties between China and Ghana have 
increased over the past ten years. China estimates that in 2016 its 
total bilateral trade with Ghana was $5.9 billion, while China's 
proposed investments in Ghana totaled $323 million. China invests 
mainly in Ghana's manufacturing sector, but has shown interest in 
increasing its involvement in infrastructure development, such as major 
port, energy, road, water, and sanitation projects. Ghana reported in 
2017 that it secured $15 billion in financing commitments from China to 
support infrastructure projects, including $10 billion for the 
development of its bauxite industry. The Chinese also worked with Ghana 
to convert Ghana's miniature neutron source reactor from highly 
enriched uranium to low enriched uranium fuel--the first such reactor 
conversion in Africa. China has also positioned itself as the 
Government of Ghana's strategic partner for information and 
communications technology (ICT) development in Ghana. However, there 
have also been cases of illegal gold mining by Chinese companies in 
Ghana, which has somewhat strained the relationship between China and 
Ghana.

    Question 2. How do you see China's role in Africa in the short, 
medium, and long term?

    Answer. China has demonstrated it plays an increasingly influential 
role in Ghana. We believe it is important for China and other countries 
to adhere to the highest international standards of openness, 
inclusivity, transparency, respect for human rights, and good 
governance in the short, medium, and long-term. The United States 
recognizes the importance of improving sustainable development and open 
access to high-quality infrastructure. Chinese actors contributing on 
this basis should have a positive role partnering with the people and 
government of Ghana to meet their development objectives.

    Question 3. This administration has raised the possibility of 
negotiating a free trade agreement with an African country. Currently 
the U.S. has just one bilateral trade deal with an African country--
Morocco. The Trump administration has suggested looking beyond the 
African Growth and Opportunity Act (AGOA), which allows for duty-free 
treatment of goods from some Sub-Saharan African nations.

   Do you believe Ghana could or should be a candidate for a Free 
        Trade Agreement with the United States?

    Answer. Creating viable regional markets is both an African and 
U.S. priority. Lowering trade barriers promotes the growth and 
development of African economies and creates markets that are more 
attractive for U.S. companies. For those same reasons, we also want to 
develop deeper and more reciprocal trade and investment relationships 
with countries in Sub-Saharan Africa. The U.S. Government--led by 
USTR--is considering potential candidates with whom we can begin 
exploratory talks on a bilateral Free Trade Agreement to help 
accomplish that goal.
    We are pleased that Ghana is committed to expanding bilateral trade 
and investment flows with the United States and securing long-term 
market access to the U.S.--a goal we also share. The United States has 
not made any final decision about which country or countries to 
negotiate with to develop a model agreement. Our priority is to pursue 
a bilateral agreement with a willing partner that can serve as a model 
for others in the region, and would support regional integration on the 
continent.

    Question 4. What challenges does Ghana face in meeting demands of 
the U.S. market?

    Answer. There is a range of issues impeding Ghanaian companies from 
meeting the demands of the U.S. market, which are common to countries 
in the region. These include understanding of U.S. market requirements, 
ability to meet U.S. food safety standards, lack of scale to supply 
larger U.S. companies, expensive shipping costs, lack of connections to 
U.S. buyers, expensive cost of finance, and other challenges. However, 
Ghana has made progress recently in expanding and diversifying exports 
to the U.S. market under AGOA, in part as a result of capacity building 
assistance through the USAID West Africa Trade and Investment Hub.

    Question 5. Is there private sector interest in helping Ghana meet 
those challenges?

    Answer. There is private sector interest in helping Ghana to 
address the challenges it faces. U.S. companies active in Ghana are 
providing a wide range of support. For example, a number of U.S. 
companies in the cocoa sector work with smallholder farmers to meet 
international standards and improve their yields. U.S. companies 
sourcing products such as cashew and apparel in Ghana also provide 
technical and financial assistance to meet U.S. buyer specifications.

    Question 6. What challenges would Ghana face in terms of capacity 
to monitor labor and human rights conditions, and environmental issues, 
that the U.S. would expect in a free trade agreement?

    Answer. The U.S. Government has not yet defined the full framework 
under which a potential Sub-Saharan African FTA would be structured, 
but generally speaking, the Government of Ghana respects human rights, 
with some exceptions. The Ghanaian Government has taken steps to 
prosecute and punish officials who commit human rights violations, 
whether in the security forces or elsewhere in the Government, but 
impunity remains a serious problem. The United States will continue to 
work with the Government of Ghana, civil society members, and local 
human rights NGOs to promote greater respect for human rights, 
including labor rights, for all Ghanaians. Promoting greater respect 
for human rights will remain a U.S. priority regardless of a free trade 
agreement.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Michael Hammer by Senator Robert Menendez

    Question 1. What types of electoral assistance is the United States 
providing, or planning to provide, ahead of the December elections in 
Democratic Republic of the Congo (DRC)?

    Answer. If confirmed, my top policy priority in the DRC will be to 
support stability through credible elections on December 23, 2018, and 
a peaceful, democratic transfer of power. USAID has provided 
approximately $37 million in election and political processes support 
since 2013. It also funds a governance program, which enables the 
delivery of key services, particularly for health and education. USAID, 
in partnership with the United Kingdom (UKAID) is also providing civic 
and voter education to an estimated 15 million Congolese through civil 
society organizations, face-to-face community campaigns, and a 
nationwide media campaign. USAID supports the DRC's leading domestic 
observer group to monitor voter registration and provide timely 
recommendations to the National Independent Electoral Commission 
(CENI), and long-term observation continues through over 300 monitors 
deployed nationwide.
    If confirmed, I will support U.S. Government programs and consider 
leveraging the visa denial and sanctions tools to strengthen democratic 
institutions, promote good governance and transparency, and combat 
corruption.

    Question 2. What policy conditions are attached to such assistance?

    Answer. The administration has made clear to the DRC Government and 
the DRC's electoral commission, CENI, that the U.S. Government stands 
ready to support a process that is credible, inclusive, and 
constitutional. If confirmed, I would work closely with the U.S. 
interagency to closely monitor and respond appropriately to any 
developments that could affect our programming. The United States will 
respect the opinion of the Congolese people as they decide whether the 
electoral process is credible and inclusive.

    Question 3. How should the U.S. Government gauge whether the 
election process and results are credible?

    Answer. While some important steps have been taken on the electoral 
process, including, for example, the completion of the voter 
registration, the DRC Government and National Independent Electoral 
Commission (CENI) must make additional progress to ensure credible 
elections will be held in December. Additional progress on both 
technical steps and political measures will be necessary over the next 
months if the electoral calendar is to remain viable and the process 
credible. Several key steps over the next months will be critical for 
credible elections to be held on December 23, 2018, in an open, 
inclusive, and peaceful environment, with respect for human rights and 
fundamental freedoms. However, it will ultimately be up to the 
Congolese people to decide whether the electoral process has been 
credible and acceptable.
    The U.S. Government regularly assesses progress on both technical 
measures and political actions as part of overall engagement on the 
electoral process. While there is no doubt that greater progress needs 
to be made, particularly on political measures, there is still time for 
credible elections to be held. If confirmed, I will maintain focus on 
the administration's top priority in the DRC to ensure the elections 
held on December 23, 2018, are credible, peaceful, and inclusive.

    Question 4. What would be the best U.S. response if elections are 
further delayed, if President Joseph Kabila runs for reelection, or if 
election results are not credible?

    Answer. If confirmed, I will continue the administration's pressure 
on the DRC Government to make clear that we expect the DRC to hold 
elections on December 23, 2018, and that President Kabila will not run 
for re-election, per his commitments made in December 2016 Agreement 
and in accordance with the DRC's constitution. If elections are either 
delayed again or take place but are not credible, there is a serious 
risk of violence and long-lasting instability and unrest for both the 
DRC and the region. It would clearly be inconsistent and incompatible 
with a credible process and a democratic transfer of power if President 
Kabila were to join the race as a candidate.
    Absent progress on key technical and political measures over the 
next few months, we will continue to evaluate our options. If 
confirmed, the team at Embassy Kinshasa and I would explore options 
within the interagency to impose additional targeted sanctions, as 
developments warrant, on individuals or entities--whether government or 
opposition--that are responsible for human rights violations or abuses; 
threatening the peace, security, or stability of the DRC; undermining 
democratic processes or institutions in the DRC; or engaging in or 
facilitating corruption.

    Question 5. How does our work in the area of security assistance 
support our elections strategy and overall messaging in DRC?

    Answer. The administration's top policy priority in the DRC is to 
support stability through credible elections on December 23, 2018, and 
a peaceful, democratic transfer of power. While elections alone will 
not address the DRC's many challenges, including deep concerns 
regarding human rights violations and abuses, a peaceful, democratic 
transfer of power is a critical step for creating an environment 
conducive to improved stability, governance, and the rule of law.
    The State Department's security assistance programs seek to develop 
a transparent, accountable, professional security sector that serves as 
a trustworthy protector of the civilian population and that respects 
human rights and the rule of law, including investigating and 
administering justice as appropriate.

    Question 6. The United Nations peacekeeping mission in DRC plays a 
critical role in protecting civilians in conflict areas and promoting 
stability. Yet, its capabilities are limited and it is not a substitute 
for a political agreement respected and adhered to by all relevant 
stakeholders.

   What are your views on the administration's decision to reexamine 
        MONUSCO's troop ceiling, given conditions in the country and 
        the observations of the deteriorating situation in-country?

    Answer. The United States conducts a review, according to its 
peacekeeping principles, of each United Nations (UN) peacekeeping 
mission as its mandate comes up for renewal to ensure it is appropriate 
to the situation in the country and that it is advancing United States 
objectives. The U.N. implemented the troop reduction as mandated in 
March 2017 by drawing down underperforming troops. The United States 
believes this sent an important signal to other poor performers that 
they must improve, and has increased the effectiveness of the Mission. 
The U.N. has also begun to make the force more mobile and flexible.
    MONUSCO continues to make critical contributions to peace and 
security and the protection of human rights in the DRC and the region. 
If confirmed, I look forward to working with other U.N. Security 
Council members to ensure that MONUSCO is responsive, flexible, and 
able to fulfill its mandated tasks actively and effectively, especially 
protecting civilians and supporting the electoral process, and address 
the ongoing violence in the DRC.

    Question 7. The United Nations peacekeeping mission in DRC plays a 
critical role in protecting civilians in conflict areas and promoting 
stability. Yet, its capabilities are limited and it is not a substitute 
for a political agreement respected and adhered to by all relevant 
stakeholders.

   What changes, if any, would you seek to MONUSCO's mandate, 
        including the authorized troop ceiling?

    Answer. The United States is committed to ensuring peacekeeping 
missions are fit for purpose. MONUSCO's mandate is up for renewal in 
March 2019, at which point the United States will assess the situation 
on the ground and how the mission is performing when considering any 
changes to the mission. Missions and mandates should be adjusted where 
Security Council objectives are not achieved.

    Question 8. P.L. 109-456, enacted in 2006, stated that the 
President ``should appoint a Special Envoy for the Great Lakes 
Region,'' but the Trump administration has not appointed anyone to 
serve in such a position.

   What is your view on the utility of a Special Envoy for the Great 
        Lakes in our efforts to support peace and stability in DRC, 
        including through credible elections?

    Answer. I greatly appreciate the efforts by previous Special Envoys 
for the Great Lakes Region in advancing peace and stability objectives 
for eastern DRC. The U.N. estimates that more than 100 armed groups 
operate in the east. A failed or flawed election in December 2018 
threatens to further destabilize an already volatile region, including 
its borders with Uganda, Rwanda, and Burundi. If confirmed, I will work 
closely with my fellow Ambassadors across the Great Lakes countries to 
ensure our policy objectives are aligned and our teams are coordinated. 
The Department of State currently has a Senior Coordinator for the 
Great Lakes region, who is an active liaison with international 
partners on critical DRC and Great Lakes issues. As many policy 
priorities, namely the December 2018 elections, are DRC domestic 
political issues to be addressed bilaterally, if confirmed I will work 
diligently with U.S. and international senior officials to elevate and 
implement our efforts to support peace and stability in the DRC, 
including through credible elections.

    Question 9. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to DRC?

    Answer. Yes. As I have throughout my career and during this 
nomination process, if confirmed, I commit to regularly meeting with 
Members of Congress and/or their staff to share information, learn 
about Congressional priorities, address questions or concerns, and 
ensure the actions and objectives of Embassy Kinshasa are effectively 
communicated.

    Question 10. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have worked to support democracy and human rights as a 
key core component of our foreign policy throughout my nearly 30-year 
Foreign Service career. My deep commitment to these issues began years 
before my career, as my father was assassinated in San Salvador by a 
right-wing death squad when I was barely seventeen.
    As Assistant Secretary of State for Public Affairs, I was the 
administration's representative to the United Nations Educational, 
Scientific, and Cultural Organization (UNESCO) 2013 World Press Freedom 
day in Costa Rica. I spoke on the importance of securing freedom of 
expression for all media, thereby highlighting the importance of press 
freedom on a global stage. I also spoke about press freedom and freedom 
of expression in my trips as Assistant Secretary to Kenya, Uganda, 
South Africa, Honduras, Uzbekistan, Kyrgyzstan, Tajikistan, Mongolia, 
and China.
    As Ambassador to Chile, I was very proud of leading our Mission's 
work in supporting the LGBTI community, combating human trafficking, 
and in speaking out on human rights issues. If confirmed, I will bring 
my passion for promoting human rights to the Democratic Republic of the 
Congo.

    Question 11. What issues are the most pressing challenges to 
democracy or democratic development in Democratic Republic of the Congo 
in your view? These challenges might include obstacles to participatory 
and accountable governance and institutions, rule of law, authentic 
political competition, civil society, human rights and press freedom. 
Please be as specific as possible.

    Answer. If confirmed, my top policy priority will be supporting a 
credible process that enables the Congolese people to peacefully and 
democratically elect their next president on December 23, 2018. To this 
end, I am extremely concerned that actions such as restrictions on 
public rallies, meetings, and demonstrations, not to mention the 
arbitrary arrests and the continued detention of opposition figures and 
civil society activists, will undermine the fully inclusive, credible, 
and democratic electoral process. While elections alone will not 
address the DRC's many challenges, including deep concerns regarding 
human rights violations and abuses, a peaceful, democratic transfer of 
power is a critical step for creating an environment that will support 
the improvements to the DRC's stability, governance, and rule of law.

    Question 12. What steps will you take--if confirmed--to support 
democracy in Democratic Republic of the Congo? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. If confirmed, I will urge President Kabila to abide by his 
commitment to respect the Constitution and December 2016 St. Sylvestre 
Agreement and have elections in December. At the same time, the U.S. 
Government will press Kabila and the DRC Government to allow for the 
opposition's active participation, which is critical to an inclusive 
electoral process. It is up to the Congolese people to vote for their 
next president, but we hope U.S. and international encouragement can 
lead to greater implementation of the December 2016 Agreement and a 
credible, inclusive, and constitutional election. The region has much 
at stake in ensuring a peaceful and democratic transition, given the 
high risk of unrest and violence if elections are not held as planned. 
If confirmed, I will work closely with our Embassy Kinshasa team to 
explore all options in our toolbox to advance our objectives, including 
targeted sanctions; public messaging; diplomatic engagement, senior-
level visits; and technical assistance.

    Question 13. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Throughout my career, I have worked to ensure that we use 
effective and efficient U.S. Government assistance programs to promote 
stronger democratic institutions. If confirmed, in the immediate term, 
I will ensure our programming supports the upcoming December 23, 2018, 
elections to be free, fair, and credible and ensure the first peaceful 
and democratic transfer of power in the DRC's history. USAID has 
provided approximately $37 million in election and political processes 
support since 2013, with programs including support for citizens' 
improved access to electoral information, Congolese civic groups to 
educate citizens about the rights and roles of voters, election 
observers, and civil society organizations. Furthermore, a governance 
program enables the delivery of key services, particularly for health 
and education. If confirmed, I will work with my Public Affairs team to 
ensure that we take full advantage of the range of exchange and 
outreach programs to strengthen democratic institutions and build the 
professional capacity of state-run media and others who can influence 
good governance.

    Question 14. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Democratic Republic of the Congo? What steps will you take 
to pro-actively address efforts to restrict or penalize NGOs and civil 
society via legal or regulatory measures?

    Answer. Yes, I plan to meet with civil society members, human 
rights, and other non-governmental organizations (NGOs) both in the 
United States and in the DRC. I have always been open to meetings with 
civil society and human rights NGOs and met with their representatives 
throughout my career. As Ambassador to Chile, I personally advocated 
for resolution and justice in pending human rights cases stemming from 
the Pinochet dictatorship, including one case affecting a missing 
American citizen--Boris Weisfeiler.
    If confirmed, I will urge the Congolese Government to increase 
political space for all stakeholders and will seek ways to strengthen 
judicial independence; accountability; and capacity to uphold the DRC's 
constitution, which enshrines democratic rights; and promote the 
improvement of the rule of law. I will also continue the Mission's work 
to provide institutional and individual support for democratic rights 
through a number of civil society and human rights organizations that 
advocate for legal and regulatory norms.

    Question 15. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes, as I have done throughout my career, if confirmed I 
fully intend to meet with democratically oriented political opposition 
figures and parties. While serving in Bolivia, I met with parties 
across the political spectrum and the Evo Morales Government frequently 
had me followed when I met with democratically elected opposition 
leaders. However, I did not allow this government intimidation to 
prevent my outreach to legitimate opposition political figures. As 
Ambassador to Chile, I was active in promoting women's rights and was 
honored to be made an honorary Ambassador by the leading women's rights 
organization ``Hay Mujeres.''
    The most immediate barometer of the DRC Government's willingness to 
allow genuine political competition will be the upcoming December 23 
election. If confirmed, I will support Embassy Kinshasa's engagement 
with all parties and advocacy for democracy and inclusivity across 
minorities, women, and youth. For example, I will support the Public 
Affairs Section's assistance to the Congolese Twa Association, the 
leading organization advocating for social inclusion of Twa and other 
indigenous Congolese populations, in their efforts to raise awareness 
of indigenous peoples' land tenure issues and to preserve Twa language 
and cultural heritage.

    Question 16. Will you and your Bureau leadership team actively 
engage with Congolese leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Democratic Republic of the 
Congo?

    Answer. Yes, throughout my career, I have actively engaged to 
protect press freedom and confront those seeking to undermine or 
control free speech and media coverage. Through years working with 
American and international media, I have grown to appreciate the 
challenges and hardships members of the press encounter and have 
tremendous respect for their vital efforts to keep the U.S. and other 
governments accountable to the people. Freedom of press is essential 
for democracy to thrive.
    If confirmed, I will urge the DRC Government to respect freedom of 
speech and will speak out against efforts to intimidate or suppress the 
press. I will also ask that my Embassy Kinshasa team utilize all 
methods to build professional capacity within media institutions and 
raise awareness therein of how a free media should perform. I will 
advocate for increasing media freedom in the DRC and an end to the 
violence and harassment against journalists, while encouraging the DRC 
Government to be more open with and accommodating to international 
media looking to cover stories in the country.

    Question 17. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. Yes. Disinformation and propaganda occur frequently in DRC 
media, although usually from domestic sources. If confirmed, I will 
ensure our Missions remain alert, particularly to potential efforts by 
foreign state or non-state actors. I would continue to support Embassy 
Kinshasa's support of professional journalists and free press advocacy 
organizations like Journalistes en Danger, and particularly the Public 
Affairs Section's support of a network of citizen journalists 
throughout the DRC. Trained in basic journalism techniques by Voice of 
America, this corps of citizen journalists actively counters 
disinformation in the DRC by verifying stories and sources in remote 
areas of the country, often identifying propaganda emanating from the 
many armed groups operating in the volatile eastern Congo.

    Question 18. Will you and your Bureau leadership team actively 
engage with Congolese interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. If confirmed, yes. My father worked for the American 
Institute for Free Labor Development, so I have always had an 
appreciation for the importance of independent trade unions and the 
right of labor groups to organize. Throughout my career, I have met 
with trade union leaders and look forward to doing so in the DRC. I 
understand the DRC constitution formally recognizes workers' rights to 
organize and join unions, with some restriction, but while hundreds of 
unions exist in the DRC, only a small percentage of the country's 
workers are organized. If confirmed, I will work with Embassy 
Kinshasa's Economic Unit to engage interlocutors on the DRC's majority 
workforce in the informal sector and better understand how Congolese 
can benefit from labor law protections.

    Question 19. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Democratic 
Republic of the Congo, no matter their sexual orientation or gender 
identity? What challenges do the lesbian, gay, bisexual, transgender 
and intersex (LGBTI) people face in Democratic Republic of the Congo? 
What specifically will you commit to do to help LGBTI people in 
Democratic Republic of the Congo?

    Answer. Yes, throughout my career, I have advocated for the human 
rights and dignity of all persons, including the LGBTI community. As 
Ambassador to Chile, I attended and hosted events that highlighted the 
importance of inclusion and human rights for the LGBTI community, 
including giving remarks at the annual Pride Day parade in Santiago 
alongside LGBTI leaders and the Chilean Justice Minister. As 
Ambassador, I welcomed the visit of the then-Special Envoy for LGBTI, 
therefore demonstrating our commitment to engaging leading human rights 
and LGBTI groups in Chile. As Ambassador to the DRC, if confirmed, I 
will similarly ensure our Mission supports LGBTI rights as we advance 
human rights more broadly. This will certainly be challenging given the 
country's record of significant violence and stigmatization against 
LGBTI persons. I am pleased that Embassy Kinshasa already hosts 
webchats, roundtables, and panel discussions of LGBTI issues, and if 
confirmed, I look forward to participating in that important 
programming.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Hon. Michael Hammer by Senator Benjamin L. Cardin

DRC conflict minerals and U.S. company compliance with Dodd-Frank
    Question 1. Section 1502 of the Dodd-Frank Wall Street Reform and 
Consumer Protection Act requires companies trading on U.S. securities 
exchanges to determine through supply-chain due diligence whether or 
not their products contain conflict minerals from the Democratic 
Republic of Congo or neighboring countries, and report their findings 
annually to the Securities and Exchange Commission.

   Do you believe the 1502 mechanism is working?

    Answer. The United States has played a leadership role in 
encouraging responsible mineral sourcing as part of broader efforts to 
support peace and security. Stakeholders have taken significant steps 
in the implementation of initiatives at the international, regional, 
and national levels to support responsible sourcing and combat the 
illicit trade in conflict minerals.
    These initiatives have been critical not just for breaking the 
links between armed groups, human rights abuses, and the minerals 
trade, but also for helping to ensure the DRC's resource wealth 
contributes to the socioeconomic development of the population. As a 
direct result of these initiatives, approximately 79 percent of 3T 
(tin, tantalum, tungsten) mines are now conflict free and almost 100 
percent of smelters for the 3Ts are now certified conflict-free. Of 
note is the improved governance and accountability in the DRC's 
artisanal sector and reduced armed group presence at mine sites, 
particularly for the 3Ts. I understand that there remain a number of 
challenges to addressing gold.
    Globally, Section 1502 has transformed the responsible sourcing 
landscape. The EU recently adopted its own conflict minerals 
regulations to take effect in 2021. India plans to adopt responsible 
sourcing guidance for gold to be implemented by 2021. China has draft 
conflict minerals guidance under review.

    Question 2. What could be done to improve implementation?

    Answer. The United States remains committed to working with 
partners to counter the destabilizing activities of armed groups that 
operate in the DRC and neighboring countries. The State Department 
conducted an open comment period earlier this year and meets regularly 
with concerned actors on this issue.
    If confirmed, I would continue the administration's efforts to 
engage a variety of U.S. and international stakeholders on 1502 
implementation and the best ways to address the responsible sourcing of 
conflict minerals and the promotion of a responsible minerals trade in 
the DRC.

    Question 3. If confirmed, how will you work with the Democratic 
Republic of the Congo Government to improve human rights conditions in 
their mining and extractives sector?

    Answer. If confirmed, I will work with all stakeholders to seek 
ways to improve human rights conditions in the DRC's mining and 
extractives sector. This will include continuing U.S. efforts to 
encourage and support companies operating in the mining and extractives 
industries to participate in the Voluntary Principles on Security and 
Human Rights. I will also seek to continue U.S. work to support 
responsible supply chain management, which has been a strong focus, 
particularly in the eastern DRC's mining sector. Finally, if confirmed, 
I will continue to work with other U.S. Government agencies, such as 
the U.S. Department of Labor, to support programming and initiatives 
aimed at improved working conditions and combating forced child labor 
in the DRC's mining and extractive industries. Specifically, if 
confirmed, I would continue to support efforts to improve existing and 
create additional innovative traceability mechanisms. Increased 
competition in conflict-free traceability systems would improve due 
diligence and lower costs for participating mineral producers and U.S. 
industry.

    Question 4. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have worked to support democracy and human rights as a 
key core component of our foreign policy throughout my nearly 30-year 
Foreign Service career. My deep commitment to these issues began years 
before my career, as my father was assassinated in San Salvador by a 
right-wing death squad when I was barely seventeen.
    As Assistant Secretary of State for Public Affairs, I was the 
administration's representative to the United Nations Educational, 
Scientific, and Cultural Organization (UNESCO) 2013 World Press Freedom 
day in Costa Rica. I spoke on the importance of securing freedom of 
expression for all media, thereby highlighting the importance of press 
freedom on a global stage. I also spoke about press freedom and freedom 
of expression in my trips as Assistant Secretary to Kenya, Uganda, 
South Africa, Honduras, Uzbekistan, Kyrgyzstan, Tajikistan, Mongolia, 
and China.
    As Ambassador to Chile, I was very proud of leading our Mission's 
work in supporting the LGBTI community, combating human trafficking, 
and in speaking out on human rights issues. If confirmed, I will bring 
my passion for promoting human rights to the Democratic Republic of the 
Congo.

    Question 5. What are the most pressing human rights issues in The 
Democratic Republic of the Congo? What are the most important steps you 
expect to take--if confirmed--to promote human rights and democracy in 
The Democratic Republic of the Congo? What do you hope to accomplish 
through these actions?

    Answer. If confirmed, I will continue the administration's active 
engagement in pressing for greater respect for human rights in the DRC. 
This includes condemning and seeking accountability for excessive use 
of force by security services against citizens, violations of human 
rights, and denial of basic civil and political rights. I will work to 
dissuade the DRC Government from attempts to pass laws severely 
restricting civil liberties and call for accountability of those 
responsible for human rights violations and abuses. If confirmed, I 
would also work to address serious human rights abuses committed by 
armed groups and militias, which continue to cause immense suffering in 
areas like eastern DRC and the Kasais. I will support the 
implementation of U.N. resolutions, encourage cooperation with the U.N. 
Office for the High Commissioner for Human Rights (OHCHR), and continue 
the American tradition of supporting human rights defenders and media 
freedoms. This also includes consideration of further use of our 
sanctions authorities against human rights abusers or those responsible 
for undermining democratic processes in the DRC. Credible elections on 
December 23, 2018, as scheduled, are critical to averting violence and 
improving the overall human rights climate in the country.

    Question 6. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in The Democratic 
Republic of the Congo in advancing human rights, civil society and 
democracy in general?

    Answer. If confirmed, my top policy priority will be supporting a 
credible process that enables the Congolese people to peacefully and 
democratically elect their next president on December 23, 2018. To this 
end, I am extremely concerned that actions such as restrictions on 
public rallies, meetings, and demonstrations, not to mention the 
arbitrary arrests and detention of opposition figures and civil society 
activists, undermine a fully inclusive and democratic electoral 
process. While elections alone will not address the DRC's many 
challenges, including deep concerns regarding human rights violations 
and abuses, a peaceful, democratic transfer of power is a critical step 
for creating an environment that will support improvements to the DRC's 
stability, governance, and the rule of law.

    Question 7. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in The Democratic Republic of the Congo? If 
confirmed, what steps will you take to pro-actively support the Leahy 
Law and similar efforts, and ensure that provisions of U.S. security 
assistance and security cooperation activities reinforce human rights?

    Answer. Yes, I plan to meet with civil society members, human 
rights, and other non-governmental organizations (NGOs) both in the 
United States and in the DRC. I have always been open to meetings with 
civil society and human rights NGOs and met with their representatives 
throughout my career.
    If confirmed, I will proactively work to ensure that we are 
implementing the Leahy Law requirements and also undertaking steps to 
ensure that all U.S. security assistance and cooperation reinforces 
respect for human rights. To this end, I plan to continue the State 
Department's current efforts to focus any U.S. security assistance and 
cooperation efforts on supporting professionalism of the Congolese 
security forces and civilian law enforcement in areas where we can have 
a positive impact, such as military justice in response to concerns 
regarding the human rights environment.

    Question 8. Will you and your embassy team actively engage with The 
Democratic Republic of the Congo to address cases of key political 
prisoners or persons otherwise unjustly targeted by The Democratic 
Republic of the Congo?

    Answer. If confirmed, my top policy priority will be supporting a 
credible process that enables the Congolese people to peacefully and 
democratically elect their next president on December 23, 2018. To this 
end, I am extremely concerned that actions such as restrictions on 
public rallies, meetings, and demonstrations, not to mention the 
arbitrary arrests and detention of opposition figures and civil society 
activists, undermine the ability of the opposition and civil society to 
participate fully in the electoral process.
    If confirmed, I will urge the Congolese Government to increase 
political space for all stakeholders and will seek ways to strengthen 
judicial independence, accountability, and capacity to uphold the DRC's 
constitution, which enshrines democratic rights. I will also continue 
the Mission's work to provide institutional and individual support for 
human rights through a number of civil society and human rights 
organizations that advocate for legal and regulatory norms.

    Question 9. Will you engage with The Democratic Republic of the 
Congo on matters of human rights, civil rights and governance as part 
of your bilateral mission?

    Answer. Yes, if confirmed, I plan to continue the administration 
and U.S. Embassy's active engagement to support respect for human 
rights and civil rights and governance in the DRC. This includes 
condemning the excessive use of force by security services against 
civilians and government attempts to pass laws severely restricting 
civil liberties. I would seek to protect media freedoms, civil society 
activists, and human rights defenders; I would press for the Government 
to hold accountable those responsible for human rights violations and 
abuses and implement U.N. resolutions, while cooperating with the U.N. 
Office for the High Commissioner for Human Rights (OHCHR). This also 
includes consideration of further use of our sanctions authorities 
against human rights violators and abusers or those responsible for 
undermining democratic processes in the DRC. While elections alone will 
not solve the DRC's human rights problems, they are critical to 
averting violence and improving the overall human rights climate in the 
country.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. Yes, and I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes, and I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in The Democratic Republic of the Congo?

    Answer. No.

    Question 13. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my career, I have advocated for the dignity of 
all persons with diverse backgrounds and underrepresented groups. My 
own mixed heritage family history motivated me to serve our great 
country. I am a first-generation native-born American; my mother is 
from Spain and my grandparents on my father's side fled Nazi Germany to 
France and then Ecuador before immigrating to the United States. When I 
served as Assistant Secretary of State for Public Affairs as well as 
when I was on detail at the National Defense University, I participated 
in the State Department's recruitment outreach and traveled to numerous 
college campuses, including to encourage Native Americans in New Mexico 
and North Dakota, African-Americans at HBCUs in Atlanta, Hispanics in 
Texas, Arab-Americans in Michigan, and? Asian-Americans in California, 
to consider careers in the Foreign or Civil Service.
    If confirmed, I plan to do as I did when I was Ambassador in Chile 
and mentor, support, and promote my Foreign Service colleagues, Locally 
Employed Staff, and Eligible Family Members. At Embassy Kinshasa, if 
confirmed, I intend to? make clear my commitment to the diversity of 
culture, ethnicity, language, gender, sexuality, and other identities. 
For example, as Ambassador to Chile, I attended and hosted events that 
highlighted the importance of inclusion and human rights for the LGBTI 
community, including giving remarks at the annual Pride Day parade in 
Santiago alongside LGBTI leaders and the Chilean Justice Minister.Also, 
once in the DRC, if confirmed, I would hope to attend and host events, 
webchats, roundtables, and panel discussions that feature the great 
qualities, character, and talent of underrepresented groups on my team.

    Question 14. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I firmly believe that the success of our diplomacy depends 
on our people and, if confirmed, I will have no higher priority than to 
ensure the safety, security, and well-being of our mission staff and 
the American community. I recognize that our Embassy personnel in 
Kinshasa are already serving under difficult conditions, and I will be 
focused on ensuring my team and their families are secure and included 
no matter their background or identity. I made this commitment of 
support for Kinshasa personnel before the Senate Foreign Relations 
committee and the American public during my confirmation hearing, and I 
will communicate this to all supervisors and staff at the Embassy from 
the moment I arrive and through Mission-wide Town Halls, if confirmed. 
I also intend to use our awards program to recognize meritorious and 
superior performance.

    Question 15. How does political corruption impact democratic 
governance and the rule of law?

    Answer. The DRC ranked 161 out of 180 countries on the 2017 
Corruption Perception Index published by Transparency International. 
This endemic and deep root of corruption in the DRC Government and day-
to-day life can cripple economic development and hinder efforts to 
strengthen democratic institutions and enforce rule of law. It is 
critical that the process for organizing elections on December 23, 
2018, be conducted in a credible, transparent manner. Acts of 
corruption related to the electoral process undermine the credibility 
of the process.

    Question 16. What is your assessment of corruption trends in the 
Democratic Republic of the Congo and efforts to address and reduce them 
by the Government of the DRC?

    Answer. The DRC continually ranks at or near the bottom of key 
international corruption rankings. The DRC ranked 161 out of 180 
countries on the 2017 Corruption Perception Index published by 
Transparency International. The DRC's score of 21 percent in 2017, 
similar to that of 2016, highlights the lack of progress in fighting 
corruption, and underlines the endemic and deep roots of corruption in 
the DRC Government, and day-to-day life. In my view, corruption in the 
DRC is a key constraint for the country's socio-economic development as 
well as to enabling U.S. businesses to compete effectively against 
China and other actors in the region. American firms see corruption as 
one of the main hurdles to investment in the DRC. If confirmed, I will 
actively work with all stakeholders to support efforts to prevent and 
combat corruption and strengthen transparency and accountability.

    Question 17. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in the Democratic 
Republic of the Congo?

    Answer. Good governance practices and anti-corruption efforts are 
critical to ensuring the DRC holds credible elections on December 23, 
2018. USAID has provided approximately $37 million in election and 
political processes support since 2013 and funds a governance program, 
which enables the delivery of key services, particularly for health and 
education. The Department also has an array of corruption-related visa 
restriction and sanctions tools, which deny entry and freeze assets of 
officials involved in significant corruption. If confirmed, I will 
support similar U.S. Government programs and consider leveraging the 
visa denial and sanctions tools to strengthen democratic institutions, 
promote good governance and transparency, and combat corruption.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Michael Hammer by Senator Cory A. Booker

DRC Elections
    Question 1. The Senate recently passed Senator Flake and my 
resolution (S.Res.386) with unanimous support, which urges the 
Government of the DRC to fulfill its agreement to hold credible 
elections this year, comply with constitutional limits on presidential 
terms, and fulfill its constitutional mandate for a democratic 
transition of power by taking concrete and measurable steps towards 
holding elections not later than December 2018 as outlined in the 
existing election calendar.
    However, widespread violence and political repression leading up to 
the election has created an environment is not conducive for credible 
elections.

   What would be your strategy to foster a more conducive environment 
        for elections?

    Answer. If confirmed, I will review the administration's current 
strategy for ensuring that the December elections take place, in 
accordance with the DRC constitution and the December 2016 St. 
Sylvestre agreement. My highest immediate priority, if confirmed, will 
be to continue the administration's efforts urging President Kabila and 
the DRC Government to hold credible elections on December 23, 2018. I 
will also reach out to important regional partners, allies, and 
international organizations based in the DRC to coordinate a strong 
message and to provide support for the free and fair election the 
Congolese people want and deserve. In addition, I will urge the DRC 
Government to allow for the needed political space for all stakeholders 
to be able to participate in a peaceful democratic process. If 
confirmed, I will work with the Embassy Kinshasa team and the U.S. 
Government interagency to strengthen judicial independence, 
accountability, and capacity to uphold the DRC's constitution, which 
enshrines civic, human, and political rights.
    Throughout my career, I have worked to ensure that we use U.S. 
Government assistance programs effectively and efficiently to promote 
stronger democratic institutions. If confirmed, I will ensure our 
programming supports the upcoming December elections to be credible and 
inclusive in accordance with the constitution, to effect the first 
peaceful and democratic transfer of power in the DRC's history. For 
example, USAID has provided approximately $37 million in election and 
political processes support since 2013, with programs including support 
for citizens' improved access to electoral information, Congolese civic 
groups to educate citizens about the rights and roles of voters, 
election observers, and civil society organizations. If confirmed, I 
will also work with my Public Affairs team to ensure that we take full 
advantage of the range of exchange and outreach programs to strengthen 
democratic institutions and build the professional capacity of the 
professional press corps and others who can promote good governance 
practices.

    Question 2. Would you use more sanctions, as was suggested in 
S.Res.386, to deter further electoral calendar slippage and abuses 
against the people of Congo?

    Answer. DRC Government progress on several key technical and 
political measures over the next months will be critical for credible 
elections to be held on December 23, 2018 in an open, inclusive, and 
peaceful environment, with respect for human rights and fundamental 
freedoms. If confirmed, I will explore options within the interagency 
to impose additional targeted sanctions, as developments warrant, on 
individuals or entities--whether government or opposition--that are 
responsible for human rights violations or abuses; threatening the 
peace, security, or stability of the DRC; undermining democratic 
processes or institutions in the DRC; or being engaged in or 
facilitating corruption.

    Question 3. What steps would you take in response to the 
possibility of President Kabila announcing a campaign for the 2018 
presidential election?

    Answer. If confirmed, I will continue the administration's pressure 
on the DRC Government to make clear that we expect the DRC to hold 
elections on December 23, 2018, and that President Kabila will not run 
for re-election, per his commitments made in the December 2016 
Agreement and in accordance with the DRC's constitution. It would 
clearly be inconsistent and incompatible with a credible process and a 
democratic transfer of power if President Kabila were to join the race 
as a candidate. If confirmed, I will work closely with our Embassy 
Kinshasa team to explore all options in our toolbox to advance our 
objectives, including targeted sanctions, public messaging, diplomatic 
engagement, senior-level visits, and technical assistance. If elections 
are either delayed again or take place but are not credible, there is a 
serious risk of violence and long-lasting instability and unrest for 
both the DRC and the region.

    Question 4. How would you utilize your resources at the embassy and 
the standing of the U.S. Government to ensure that President Kabila 
steps down as part of a democratic transition of power?

    Answer. If confirmed, in coordination with Washington, I will 
continue to urge President Kabila to abide by his commitment to respect 
the Constitution and December 2016 St. Sylvestre Agreement and hold 
elections on December 23, 2018. At the same time, I will press Kabila 
and the DRC Government to allow for the opposition's active 
participation, which is critical to an inclusive electoral process. It 
is up to the Congolese people to vote for their next president. We 
expect U.S. and international encouragement will lead to greater 
implementation of the December 2016 Agreement and a credible and 
inclusive election that abides by the constitution.
    The region has much at stake in ensuring a peaceful and democratic 
transition, given the high risk of unrest and violence if elections are 
not held as planned. If confirmed, I will work closely with our Embassy 
Kinshasa team to explore all options in our toolbox to advance our 
objectives, including targeted sanctions, public messaging, diplomatic 
engagement, senior-level visits, and technical assistance.

    Question 5. What types of electoral assistance is the United States 
providing, or planning to provide, ahead of the December elections in 
DRC?

    Answer. If confirmed, my top policy priority in the DRC will be to 
support long-term stability through credible elections on December 23, 
2018, and a peaceful, democratic transfer of power. USAID has provided 
approximately $37 million in election and political processes support 
since 2013. It also funds a governance program, which enables the 
delivery of key services, particularly for health and education. USAID, 
in partnership with the United Kingdom (UKAID) is also providing civic 
and voter education to an estimated 15 million Congolese through civil 
society organizations, face-to-face community campaigns, and a 
nationwide media campaign. USAID supports the DRC's leading domestic 
observer group to monitor voter registration and provide timely 
recommendations to the National Independent Electoral Commission 
(CENI), and long-term observation continues through over 300 monitors 
deployed nationwide. I will also consider the possibility of providing 
additional election support, in coordination with other partners.

    Question 6. What policy conditions are attached to such assistance?

    Answer. The administration has made clear to the DRC Government and 
the DRC's electoral commission (CENI) that the U.S. Government stands 
ready to support a process that is credible and inclusive, in 
accordance with the constitution. If confirmed, I will work closely 
with the U.S. Government interagency to closely monitor and respond 
appropriately to any developments that could affect our programming. 
The United States will respect the opinion of the Congolese people as 
they decide whether the electoral process is credible and inclusive. 
And, if confirmed, I will support U.S. Government programs and consider 
leveraging the visa restrictions and sanctions tools to strengthen 
democratic institutions, promote good governance and transparency, and 
combat corruption.

    Question 7. How should the U.S. Government gauge whether the 
election process and results are credible?

    Answer. While some important steps have been taken on the electoral 
process, including, for example, the completion of voter registration, 
the DRC Government and National Independent Electoral Commission (CENI) 
must make additional progress to ensure credible elections will be held 
in December. Additional progress on both technical steps and political 
measures will be necessary over the next months if the established 
electoral calendar is to remain viable and the process credible for the 
elections to be held on December 23, 2018 in an open, inclusive, and 
peaceful environment, with respect for human rights and fundamental 
freedoms. However, ultimately, it will be up to the Congolese people to 
decide whether the electoral process has been credible and acceptable.
    The U.S Government regularly assesses progress on both technical 
measures and political actions as part of overall engagement on the 
electoral process. While there is no doubt that greater progress needs 
to be made, particularly on political measures, there is still time for 
credible elections to be held. If confirmed, I will maintain focus on 
the administration's top priority in the DRC for the elections held on 
December 23, 2018, in a manner that is credible, peaceful, and 
inclusive, in accordance with the constitution.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Kyle McCarter by Senator Robert Menendez

    Question 1. Please explain your understanding of the terrorist 
threat in Kenya. What groups are operating there?

    Answer. I have worked in Kenya with my wife, Victoria, for over 30 
years. Throughout that time, I have been a keen observer of changes and 
progress; most notably, the changes in terrorist threats in the region. 
Kenya, one of our strongest partners in East Africa, faces terrorism 
threats that also pose a risk to U.S. persons and interests in the 
country. Al-Shabaab, the group responsible for the deadliest terrorist 
attacks on Kenyan soil since al-Qaeda conducted the 1998 U.S. Embassy 
bombings, exploits porous borders between Somalia and Kenya and social 
grievances of marginalized communities to carry out attacks primarily 
in Kenya's northeastern and coastal counties. These include raids and 
improvised explosive device (IED) attacks targeting security personnel, 
as well as assaults on civilians. In February 2018, five al-Shabaab 
terrorists with ties to Nairobi were discovered by local police 
approximately eight hours by road from Nairobi with rifles, hand 
grenades, and a vehicle-born improvised explosive device. During the 
last year, Kenyan police have reported arrests of several ISIS-linked 
operatives, accused of plotting attacks, recruitment and travel 
facilitation, or raising funds for the group.

    Question 2. What actions has the United States taken to counter 
terrorism and violent extremism? Have they been effective?

    Answer. The United States remains committed to helping Kenya fight 
terrorism using the most productive and responsible means possible. 
This includes the provision of counterterrorism assistance that not 
only builds the Government's capacity to detect and deter terrorism 
threats, but also prioritizes respect for human rights and the rule of 
law. Over the last three years, the United States has provided more 
than $140 million in counterterrorism support to Kenya, including more 
than $33 million to build the capacity of Kenya's civilian law 
enforcement agencies. Some of this support is used to train and equip 
Kenyan units to conduct border security operations and respond to 
active shooter threats. The Kenyan Government works closely with the 
United States to address terrorism threats and other security issues at 
the U.S. Embassy in Nairobi, including through a dedicated, U.S.-funded 
counterterrorism response team. Kenya is also an active member of the 
Partnership for Regional East African Counterterrorism (PREACT), the 
State Department-led interagency and multi-year initiative focused on 
improving partner nations' military capacity, rule of law, border 
security, ability to counter violent extremism, and ability to counter 
terrorist financing.
    Kenya continues to cooperate with the United States to prevent the 
transit through its territory of foreign terrorist fighters, Kenyans 
attempting to join al-Shabaab or ISIS, and terrorists returning from 
abroad. In April 2017, Kenya signed an agreement with the United States 
to facilitate the sharing of information on air passengers. The Kenyan 
Government also maintains a traveler screening partnership with the 
United States using the Personal Identification Secure Comparison and 
Evaluation System (PISCES) at major ports of entry. In keeping with its 
international advocacy, Kenya co-sponsored U.N. Security Council 
Resolution 2396 on returning and relocating foreign terrorist ?fighters 
in December 2017.
    Embassy Nairobi's public diplomacy Countering Violent Extremism 
(CVE) efforts engage key constituencies, including religious leaders, 
the Muslim community, and women, particularly in Kenya's coastal 
region, to expand diplomatic relationships and influence. Regional 
exchange programs connect credible voices opposing violent extremism to 
build on existing resiliencies and to counter narratives used by al 
Shabaab to recruit and radicalize. To amplify and build support for the 
U.S.-Kenya security partnership, the Public Affairs Section (PAS) 
designed a media co-op on the U.S.-Kenya counterterrorism partnership 
and funded a journalist tour to Africa Command (AFRICOM) in Stuttgart. 
PAS is an active member of U.S. Embassy Nairobi's CVE Working Group and 
works directly to guide and shape AFRICOM Military Information Support 
Team (MIST) activities. The State Department also supports CVE efforts 
within Kenya's security and justice systems to address drivers of 
violent extremism related to perceived injustices and police abuse. 
This includes community engagement training for police that enables 
officers to build trusting and constructive relationships with at-risk 
communities and access to justice programming to increase 
accountability of police.

    Question 3. If confirmed, what changes to our counterterrorism 
approach would you recommend?

    Answer. If confirmed, I would work to ensure that our 
counterterrorism approach maintains our strong U.S.-Kenyan partnership 
in the fight against terrorism. Our security assistance enhances Kenyan 
military capabilities to neutralize and eliminate al-Shabaab and to 
enable the Kenyan Defense Forces (KDF) to contribute to regional 
peacekeeping operations.

    Question 4. What is the status of the Security Governance 
Initiative in Kenya? What has been the impact of the program? Will you 
advocate, if confirmed for the program to continue?

    Answer. The Security Governance Initiative (SGI) is a multi-year, 
interagency effort to improve security sector governance for six 
partner countries to more efficiently and responsibly address security 
challenges, and more effectively prevent national and regional 
instability. In 2015, the U.S. Government and the Government of Kenya 
jointly drafted and signed a Joint Country Action Plan for SGI-Kenya, 
which outlined three focus areas: border management, police human 
resource management, and administration of justice. In 2017, Countering 
Violent Extremism was added as a cross-cutting theme. I understand that 
the Departments of State, Homeland Security/Customs and Border 
Protection, and Justice, as well as USAID implement SGI on behalf of 
the U.S. Government. If confirmed, I will work with the interagency and 
the Government of Kenya to promote good governance of the security 
sector and ensure that the reforms and progress made through the SGI 
partnership continue.

    Question 5. Have authorities undertaken credible investigations 
into excessive use of force by police related to the 2017 elections?

    Answer. Senior U.S. officials have raised the issue of heavy-handed 
security force tactics to the highest levels of the Kenyan Government. 
We have also taken steps to address underlying factors that may 
contribute to use of such tactics by investing time and technical 
expertise in police accountability mechanisms and in judicial reform.

    Question 6. If confirmed, do you plan to advocate for the 
Kenyatta's administration to hold police accountable for reports of 
police brutality and extrajudicial killings?

    Answer. If confirmed, I will lead our efforts to urge Kenya's 
security (both public and private) and justice sectors to investigate 
credible human rights abuse allegations vigorously and hold 
perpetrators--including security forces--to account, stressing the 
essential nature of respect for human rights and accountability for 
security services.

    Question 7. If confirmed, what specific steps would you take to 
ensure that abusive security actors do not receive U.S. security 
assistance, as required under the Leahy Laws?

    Answer. I understand that the State Department takes its 
obligations to Congress under the Leahy Amendment very seriously, and 
every aspect of our robust counterterrorism and security relationship 
subject to the Leahy provisions undergoes a vigorous vetting process. 
If confirmed, I will support the administration's policies.

    Question 8. What more should the U.S. Government do to help ensure 
that Kenyan security forces do not engage in excesses and abuse?

    Answer. The United States has a strategic interest in Kenya's 
development, security, and stability, which is reflected in our 
partnership on regional and global issues and our extensive bilateral 
programs. While Kenya has made important progress across sectors, it 
faces some formidable challenges, including in strengthening governance 
and electoral processes. If confirmed, I will work to ensure that the 
United States continues to push for reforms in Kenya's security sector 
that address excesses and abuse.

    Question 9. According to Human Rights Watch, ``Over the past five 
years, Kenyan authorities have used legal, administrative, and informal 
measures to restrict media. In the lead up to the 2017 elections, 
journalists and bloggers reporting on sensitive issues such as land, 
corruption, and security faced threats, intimidation, arbitrary 
arrests, and physical assaults.''Is this assessment accurate in your 
view?

    Answer. Yes, in my view it is accurate that journalists and 
bloggers faced substantial difficulties when attempting to report on 
sensitive issues in the lead up to the 2017 elections.

    Question 10. What actions will you take if confirmed to support 
media freedom?

    Answer. The United States Government remains concerned by attempts 
during and after the prolonged 2017 election process to undermine key 
democratic institutions such as the judiciary and the media. The U.S. 
Government hopes President Kenyatta and Raila Odinga's pledge to work 
together will lead to a sustained, open, and transparent dialogue 
involving all Kenyans to resolve the deep divisions that the electoral 
process has exacerbated. The U.S. Government will continue to work with 
all Kenyans committed to building democracy, advancing prosperity, and 
strengthening security.
    During my tenure as Ambassador, if confirmed, I will work with 
Embassy Nairobi's public diplomacy team to ensure that the United 
States continues to provide strong support for media freedom in Kenya.

    Question 11. If confirmed, will you commit to promoting religious 
freedom in Kenya, including for religious minorities? If so, how?

    Answer. The United States places great importance on the protection 
and promotion of the human rights and fundamental freedoms of all 
people. Promoting, protecting, and advancing human rights has long 
been, and remains, the policy of the United States. If confirmed, I 
will work with my colleagues at Embassy Nairobi to determine the most 
effective ways in which the United States can promote religious freedom 
in Kenya, including for religious minorities.

    Question 12. Do you commit to identify and denounce any actions 
taken either by the Government or other groups that target specific 
groups based on their religious affiliation?

    Answer. If confirmed, I commit to identify and denounce any actions 
taken by either the Government or other groups that target specific 
groups based on their religious affiliation. The Kenyan Government has 
an obligation to protect and respect the human rights and fundamental 
freedoms of its people, and no one should face violence or 
discrimination.

    Question 13. Will you commit to regularly meeting with religious 
and community leaders of different faiths, to facilitate dialogue on 
religious freedom and address grievances of groups who feel 
marginalized due to their minority religion?

    Answer. If confirmed, I will work to ensure that my colleagues at 
Embassy Nairobi and I meet with religious and community leaders of 
different faiths to facilitate dialogue on religious freedom and to 
address grievances of groups who feel marginalized due to their 
minority religion.

    Question 14. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Kenya?

    Answer. During my tenure as Ambassador, if confirmed, I will fully 
brief Members of Congress and/or their staff when I am in Washington, 
D.C. for visits or consultations.

    Question 15. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have used also my position as a Member of the Illinois 
Senate to raise awareness of issues like addiction, specifically the 
opioid crisis, and direct families struggling with this issue to 
resources that can provide help. As part of these efforts, I passed one 
of the strongest synthetic drug bills in the nation to address the 
plague these drugs have been upon my district, Illinois, and the 
nation.
    In Kenya, my wife and I have fought against Female Genital 
Mutilation, child marriage, and child prostitution, including 
personally rescuing many children and youth from these situations. I 
have taken babies from ditches, retrieved young girls from jail after 
being forcibly circumcised and sold for marriage, and provided a safe 
home for hundreds of children that were marginalized, orphaned, 
abandoned, and abused. Some are finishing college now and beginning to 
raise families of their own.

    Question 16. What issues are the most pressing challenges to 
democracy or democratic development in Kenya in your view? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. Ethnic-based political divisions, interference in key 
institutions, corruption, and impunity all continue to pose challenges 
to Kenya's democracy and to advancing human rights. Civil society 
organizations--particularly those focused on accountability, security 
forces abuses, and elections--face challenges and restrictions, 
including threats of closure by authorities.

    Question 17. What steps will you take--if confirmed--to support 
democracy in Kenya? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. During my tenure as Ambassador, if confirmed, I will 
further our support for good governance and democracy in Kenya. This 
includes strengthening our support for the devolution process mandated 
by the 2010 Kenyan constitution, our technical assistance to democratic 
institutions, including the judiciary and Independent Electoral and 
Boundaries Commission, and our support for Kenyan civil society 
organizations. Through these actions, I hope to help strengthen Kenyan 
civil society and democratic institutions.
    Potential impediments include the reality that not all members of 
the Kenyan opposition coalition support the recent rapprochement 
between President Kenyatta and Raila Odinga, and negative democratic 
trend lines continue, as evidenced by efforts to restrict or intimidate 
the media and the judiciary.

    Question 18. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work to ensure that U.S. Government 
assistance resources are used as effectively as possible. In Fiscal 
Year 2017, the United States provided $17.0 million worth of Democracy 
Rights and Governance (DRG) programs to strengthen accountable county 
governments, enhance capacity for civic engagement, and improve the 
enabling environment and institutions at national and county levels. 
These programs also seek to engage Kenyans to build consensus around 
electoral and political reforms and strengthen electoral institutions, 
particularly in light of Kenya's turbulent 2017 general elections.

    Question 19. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Kenya? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. A strong and active civil society is the key to a strong 
democracy. I am fully committed to helping Kenya strengthen political 
institutions, address governance challenges, promote civil society, and 
uphold human rights. Civil society groups are invaluable partners in 
delivering services and support to Kenyans across the country. Any 
efforts to restrict civil society space are inconsistent with 
democratic principles and traditions.
    If confirmed, I will work proactively to ensure that the United 
States continues to address efforts to restrict or penalize NGOs and 
civil society.

    Question 20. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I will work to ensure that the United States 
provides all possible support to facilitate an inclusive democratic 
political environment in Kenya. I will continue Embassy Nairobi's 
strong track record of advocacy for both political competition on a 
level playing field and access to the political process for women, 
minorities, and youths.

    Question 21. Will you and your Bureau leadership team actively 
engage with Kenyan leaders on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Kenya?

    Answer. If confirmed, I will actively work to engage with Kenyan 
leaders and independent, local press on issues of media freedom in 
Kenya.

    Question 22. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in the country?

    Answer. If confirmed, I will work to continue Embassy Nairobi's 
work on countering disinformation and propaganda. Embassy Nairobi 
launched a year-long media literacy campaign to help Kenyans identify 
fake news and stop the spread of false information, including using the 
more than 47,000 YALI Network members to stop, reflect, and verify 
before forwarding what could be fake news. The Embassy's robust social 
media platforms are a key tool for raising awareness about the scourge 
of fake news, and the Embassy supports its campaign with speaker 
programs, educational videos, training courses, and professional 
exchange programs.

    Question 23. Will you and your Bureau leadership team actively 
engage with Kenyan interlocutors on the right of labor groups to 
organize, including for independent trade unions?

    Answer. If confirmed, I will work to ensure that the rights of 
Kenyan laborers are respected in accordance with international labor 
laws.

    Question 24. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Kenya, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Kenya? What specifically will you commit to do to help LGBTI 
people in Kenya?

    Answer. My faith teaches me to love your neighbor as yourself. I 
firmly believe that every person is created equal and deserving of 
respect and that discrimination or repression of any type should not be 
allowed. If confirmed, I will continue to be a leader, a manager, and a 
friend of people, including treating people of all sexual orientations 
with dignity and respect,
    If confirmed, I would uphold all U.S. Government and State 
Department policies regarding the rights of LGBTI persons, including 
equal opportunities in the workplace in Embassy Nairobi for both 
American and Kenyan LGBTI employees.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Kyle McCarter by Senator Benjamin L. Carder

Kenya Post-Elections
    Question 1. After initially challenging Uhuru Kenyatta's victory in 
Kenya's 2017 presidential elections, former candidate and leader of the 
Orange Democratic Movement Raila Odinga appears supportive of the 
Kenyatta Government, marked by the March 2018 ``handshake'' and unity 
deal.

   Do you believe the new Kenyatta-Odinga alliance is genuine?

    Answer. I hope President Kenyatta and Raila Odinga's pledge to work 
together will lead to a sustained, open, and transparent dialogue 
involving all Kenyans to resolve the deep divisions that the electoral 
process exacerbated. I understand that the Department of State will 
continue to work with all Kenyans committed to building democracy, 
advancing prosperity, and strengthening security. If confirmed, I would 
intend to do the same.

    Question 2. How can the United States leverage this moment of 
relative calm in Kenyan politics to better promote its foreign policy 
and national security goals in the region?

    Answer. Kenya is one of the United States' most important partners 
in sub-Saharan Africa, especially on counterterrorism, regional 
security, trade, and global health.
    During my tenure as Ambassador, if confirmed, I look forward to 
furthering our counterterrorism and security cooperation with Kenya to 
defeat al-Shabaab, as well as to eradicate the Islamic State presence 
in East Africa. No less important is our support for good governance 
and democracy in Kenya, including our support for the devolution 
process mandated by the 2010 Kenyan constitution, our technical 
assistance to democratic institutions including the judiciary and 
Independent Electoral and Boundaries Commission, our support for Kenyan 
civil society organizations, and increasing accountability for human 
rights abuses. Kenya is a key partner on global health, and our 
programs treat disease and prevent epidemics including HIV/AIDS, 
malaria, and polio while ensuring better maternal and child health. 
Finally, Kenya is an important trade partner, and I look forward to 
working with the over 130 U.S. companies already represented in Kenya 
as well as developing new avenues for investment and economic 
cooperation.
Kenya Global Gag Rule
    Question 3. In January 2017, the Trump administration issued an 
executive order reinstating the ``Global Gag Rule'' and cutting aid to 
overseas organizations that provide, advocate, or make referrals for 
abortions. Kenya's oldest sexual and reproductive health provider, 
Family Health Options Kenya (FHOK), has lost over $2 million in funding 
(including already-obligated PEPFAR funds) for its refusal to comply 
with the President's executive order. Due to the funding cuts, FHOK has 
had to eliminate its free outreach services, close two clinics, and 
layoff 18 staffers, even though 98 percent of its services are not 
abortion-related.

   Do you agree with the implementation of the Global Gag Rule?

    Answer. If confirmed, it will be my responsibility as a U.S. 
diplomat to comply with and carry out the administration's policies. 
Further, if confirmed, I will work to ensure the enduring strength of 
the partnership between the United States and Kenya to improve the 
health of the Kenyan people. HIV/AIDS programs are only one, albeit 
critically important, part of a broader U.S. effort to assist Kenya 
across a wide range of health issues, including malaria, maternal and 
child health, family planning, nutrition, and tuberculosis.

    Question 4. Do you believe PEPFAR funds, which are used 
specifically for HIV/AIDS treatment and outreach programs and not 
related to abortion services, should be subject to Global Gag Rule 
restrictions?

    Answer. If confirmed, I will work to ensure that the United States 
continues to support Kenya's goal of achieving HIV/AIDS epidemic 
control. Through the U.S. President's Emergency Plan for AIDS Relief 
(PEPFAR), the United States is the largest bilateral donor to the 
global HIV/AIDS response. Since 2004, we have invested more than $5.2 
billion in Kenya to support HIV prevention and treatment efforts. 
PEPFAR provides over $496.2 million for antiretroviral treatment for 
more than one million Kenyans and HIV testing services for almost 13 
million. If confirmed, I will work to keep those efforts going. Kenya 
is among the 13 high-HIV-burden countries poised to achieve epidemic 
control by 2020 under the PEPFAR Strategy for Accelerating HIV/AIDS 
Epidemic Control (2017-2020).

    Question 5. How exactly do HIV/AIDS programs relate to abortion-
related services? How does cutting funding to HIV/AIDS programs exactly 
accomplish the goal of limiting and/or promoting abortion services?

    Answer. If confirmed, I will work to ensure the enduring strength 
of the partnership between the United States and Kenya to improve the 
health of the Kenyan people. HIV/AIDS programs are only one, albeit 
critically important, part of a broader U.S. effort to assist Kenya 
across a wide range of health issues, including malaria, maternal and 
child health, family planning, nutrition, and tuberculosis. Over the 
last ten years, the United States has helped Kenya remain on track to 
meet all five maternal and child nutrition World Health Assembly 
targets, surpass its five-year intermediate Family Planning 2020 
targets, and reduce its under-five mortality and infant mortality.

    Question 6. Will you work to ensure organizations like FHOK do not 
experience further funding cuts under the Global Gag Rule?

    Answer. If confirmed, I will work to ensure that Kenyan 
organizations providing public health services have ready access to the 
full extent of U.S. funding available to them.
LGBT Equality Issues
    Question 7. In June, one of the largest refugee camps in the world, 
Kenya's Kakuma Refugee Camp, held its first ever LGBT pride event. The 
camp is administered by UNHCR. Threatening messages have been left 
around the camp after the event, which garnered about 600 participants 
according to accounts. Under Kenyan law, homosexuality is a crime.

   Do you believe the Kenyan Government has a responsibility to 
        provide basic protection to all people living within its 
        borders?

    Answer. Yes. As the Universal Declaration of Human Rights states, 
all human beings are born free and equal in dignity and in rights. The 
Kenyan Government has an obligation to protect and respect the human 
rights and fundamental freedoms of their people--including LGBTI 
individuals--and no one should face violence or discrimination.

    Question 8. If confirmed, what would you do to stand up for U.S. 
values in Kenya, which include the basic human rights of all people?

    Answer. Yes. My faith teaches me to love your neighbor as yourself. 
I firmly believe that every person is created equal and deserving of 
respect and that discrimination or repression of any type should not be 
allowed. If confirmed, I will continue to be a leader, a manager, and a 
friend of people whom I treat as equals, with dignity and respect, 
regardless of their sexual orientation.
    The United States places great importance on the protection and 
promotion of the human rights and fundamental freedoms of all people. 
Promoting, protecting, and advancing human rights--including the rights 
of LGBTI persons--has long been and remains the policy of the United 
States. If confirmed, I would uphold all U.S. Government and State 
Department policies regarding the rights of LGBTI persons.

    Question 9. Embassy Nairobi has previously participated in LGBT 
pride events. As Ambassador, would you commit to holding LGBT pride 
events for American officers, their families, other foreign officials 
and Kenyan nationals?

    Answer. If confirmed, I would uphold all U.S. Government and State 
Department policies regarding equal opportunities in the workplace in 
Embassy Nairobi for both American and Kenyan LGBTI employees.

    Question 10. In the 1950s and 1960s, approximately 1,000 people 
were fired by the State Department because of their perceived sexual 
orientation. In what came to be known as the Lavender Scare, according 
to the State Department's Bureau of Diplomatic Security, employees were 
forced out on the ostensible grounds that their real or perceived 
sexual orientation rendered them vulnerable to blackmail, prone to 
getting caught in ``honey traps'' and a general security risk. Many 
more individuals were prevented from joining the State Department due 
to a screening process that was put in place to prevent those who 
``seemed like they might be gay or lesbian'' from being hired. In 
January 2017, Secretary of State Kerry apologized for the Lavender 
Scare.

   Do you believe one's real or perceived sexuality should be the 
        basis for any kind of employment or other discrimination?

    Answer. No, I do not believe that one's real or perceived sexuality 
should be the basis for any kind of employment or other discrimination.

    Question 11. Do you believe it is appropriate for the Obama, Trump, 
and subsequent administrations to recognize and apologize for the 
Lavender Scare?

    Answer. I believe that each administration should make its own 
decision.

    Question 12. Do you support a legislative solution to correct or 
address some aspects this historic injustice?

    Answer. I do not believe that a legislative solution is necessary. 
As is repeated in the Foreign Affairs Manual (FAM) below, each employee 
working for U.S. Government is covered by laws that ban discrimination. 
We must abide by these policies.

        In accordance with Title VII of the Civil Rights Act of 1964 
        (Title VII), the Department of State prohibits discrimination 
        in employment on the basis of race, color, national origin, 
        sex, or religion, and ensures that all personnel actions 
        affecting employees or applicants for employment are free from 
        discrimination on such bases.

    Question 13. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have used also my position as a Member of the Illinois 
Senate to raise awareness of issues like addiction, specifically the 
opioid crisis, and direct families struggling with this issue to 
resources that can provide help. As part of these efforts, I passed one 
of the strongest synthetic drug bills in the nation to address the 
plague these drugs have been upon my district, Illinois, and the 
nation.
    In Kenya, my wife and I have fought against Female Genital 
Mutilation, child marriage, and child prostitution, including 
personally rescuing many children and youth from these situations. I 
have taken babies from ditches, retrieved young girls from jail after 
being forcibly circumcised and sold for marriage, and provided a safe 
home for hundreds of children that were marginalized, orphaned, 
abandoned, and abused. Some are finishing college now and beginning to 
raise families of their own.

    Question 14. What are the most pressing human rights issues in 
Kenya? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Kenya? What do you 
hope to accomplish through these actions?

    Answer. The Department of State remains concerned by attempts 
during and after the prolonged 2017 election process to undermine key 
democratic institutions such as the judiciary and the media.
    During my tenure as Ambassador, if confirmed, I will further the 
Department's support for good governance and democracy in Kenya. This 
includes strengthening support for the devolution process mandated by 
the 2010 Kenyan constitution, the Department's technical assistance to 
democratic institutions, including the judiciary and Independent 
Electoral and Boundaries Commission, and support for Kenyan civil 
society organizations.
    Further, I will lead efforts to push for reforms within Kenya's 
security (both public and private) and justice sectors such that they 
vigorously investigate credible human rights abuse allegations and hold 
perpetrators--including security forces--to account, stressing that 
respect for human rights and accountability for security services is an 
absolute prerequisite for continued assistance. I will also work with 
these organizations to safeguard civic spaces and encourage creating 
linkages for civil society in parliament and constitutional 
commissions.

    Question 15. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kenya in advancing 
human rights, civil society and democracy in general?

    Answer. Ethnic-based political divisions, interference in key 
institutions, corruption, and impunity all continue to pose challenges 
to Kenya's democracy and to advancing human rights. Civil society 
organizations--particularly those focused on accountability, security 
forces abuses, and elections--face challenges and restrictions, 
including threats of closure by authorities.
    In addition, not all members of the Kenyan opposition coalition 
support the recent rapprochement between President Kenyatta and Raila 
Odinga, and negative democratic trend lines continue, as evidenced by 
efforts to restrict or intimidate the media and the judiciary.

    Question 16. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kenya? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. A strong and active civil society is the key to a strong 
democracy. I am fully committed to helping Kenya strengthen political 
institutions, address governance challenges, promote civil society, and 
uphold human rights. Civil society groups are invaluable partners in 
delivering services and support to Kenyans across the country. Any 
efforts to restrict civil society space are inconsistent with 
democratic principles and traditions.
    I understand that the State Department takes its obligations to 
Congress under the Leahy Amendment very seriously, and every aspect of 
our robust counterterrorism and security relationship subject to the 
Leahy provisions undergoes a vigorous vetting process. If confirmed, I 
will support the administration's policies.

    Question 17. Will you and your embassy team actively engage with 
Kenya to address cases of key political prisoners or persons otherwise 
unjustly targeted by Kenya?

    Answer. Kenya remains a hub of civil society organization activity 
in East Africa. A strong and active civil society is the key to a 
strong democracy, and civil society organizations in Kenya should play 
an instrumental role in helping the country heal following the 
contentious election. If confirmed, I will work with the Kenyan 
Government and civil society organizations to ensure the protection of 
rights and promote due process and transparency in the legal system for 
all Kenyans.

    Question 18. Will you engage with Kenya on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. As Ambassador, if confirmed, I will engage with Kenya on 
matters of human rights, civil rights, and governance as part of our 
bilateral mission.

    Question 19. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 20. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 21. Do you or do any members of your immediate family have 
any financial interests in Kenya?

    Answer. No.
    Question 22. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a general matter, in any work situation, I very much 
welcome a diverse business team. If confirmed, I will ensure that all 
members of the Embassy team will be encouraged, mentored, and supported 
equally so that they can perform their best, be supported by their 
leadership while doing so, and be promoted.

    Question 23. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I intend to first model this behavior so as 
to lead by example. I would also make clear to supervisors that I 
expect them to do the same. Additionally, I believe that highlighting 
the contributions of all team members routinely is important.

    Question 24. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Political corruption runs counter to and diminishes the 
effectiveness of democratic governance and the rule of law. Our 
partnership with Kenya is based on a shared commitment to democracy, 
security, economic opportunity, and strong people-to-people ties.

    Question 25. What is your assessment of corruption trends in Kenya 
and efforts to address and reduce them by the Government of Kenya?

    Answer. Although the Government of Kenya continues to work to 
combat corruption, it is an ongoing concern in the country. Since 2015, 
the United States has been assisting Kenya to successfully prosecute 
corruption cases through technical assistance.

    Question 26. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Kenya?

    Answer. If confirmed, I will be committed to protecting U.S. 
taxpayer dollars. This will include working with the Government of 
Kenya on ways to improve accounting and internal controls by 
institutionalizing anti-corruption mechanisms in all facets of 
government.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Kyle McCarter by Senator Edward J. Markey

    Question 1. This June, with 22 co-sponsors in the Senate and more 
than 60 co-sponsors in the House, Representative Lowenthal and I 
reintroduced the International Human Rights Defense Act. This bill 
would codify the position of the Special Envoy for the Human Rights of 
LGBTI Persons at the State Department, and enshrine in law U.S. 
policies to protect the human rights of LGBTI people around the globe. 
It is deeply important to me that we make preventing and responding to 
discrimination and violence against the LGBTQ community a foreign 
policy priority.
    Mr. McCarter, your record gives me little faith that you will work 
to protect the human rights of LGBTQ people worldwide. In the Illinois 
State Legislature, you led efforts to resist or even roll back progress 
for LGBTQ people. You said that legalizing same sex marriage was 
analogous to ``repealing the law of gravity.'' You claimed that anti-
bullying programs were part of the ``pro-homosexual agenda.'' You voted 
against a bill that would prohibit gay conversion therapy for minors.

   Mr. McCarter, what kind of message does your record send to the 
        Kenyan authorities who have used sexual orientation and gender 
        identity as an excuse for repression?

    Answer. My voting record in the Illinois General Assembly as it 
pertains to same sex marriage has made my views very clear. I have been 
and will always be against discrimination of any kind. All people are 
created equal and deserve to be treated with respect. I commit to 
upholding all U.S. Government and State Department policies regarding 
equal opportunities in the workplace.Additionally, the United States 
Supreme Court has spoken on the issue, marriage is now the law of the 
land in the U.S., and if confirmed, I will swear an oath to uphold the 
Constitution and all laws of the land.

    Question 2. Will you commit to standing united with Kenya's LGBTI 
community?

    Answer. If confirmed, I am committed to defending all groups of 
people who are disenfranchised or discriminated against, including 
Kenya's LGBTI community.

    Question 3. Will you commit to sending a clear and unequivocal 
message that Kenya must over-turn its colonial era laws that 
criminalize the LGBTI community?

    Answer. Yes. The criminalization of homosexuality is wrong and, if 
confirmed, I would support the Kenyan High Court ruling to overturn 
laws that criminalize the LGBTI community.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Kyle McCarter by Senator Cory A. Booker

    Question 1. Record in Illinois State Legislature: During your time 
in the Illinois State Legislature, you have led a number of efforts to 
resist or even roll back progress for LGBTQ people. You introduced 
legislation to allow child welfare agencies to discriminate against 
same-sex couples in adoption and foster care, while still receiving 
government funding.
    This would not only harm same-sex couples, but also reduce the 
number of qualified families that could give homes to children in need. 
You have also opposed anti-bullying legislation intended to protect 
LGBTQ and other youth from bullies--saying that such bills ``just have 
a pro-homosexual agenda.'' You opposed marriage equality in Illinois, 
saying that lawmakers ``might as well repeal the law of gravity'' if it 
planned to legalize gay marriage. Just last year, you introduced 
legislation that would permit individuals and businesses to 
discriminate against same-sex couples and still receive taxpayer 
funding.
    Will you ensure that LGBTQ employees at our embassy in Nairobi are 
treated with dignity and respect and will be able to exercise all of 
the rights as employees of the U.S. Government?

    Answer. Yes.

    Question 2. Will you treat Kenyan LGBTQ people with respect and 
dignity, and will you support their efforts to protect and advance 
their human rights?

    Answer. Yes. If confirmed, I am committed to defending all groups 
of people who are disenfranchised or discriminated against, including 
Kenya's LGBTI community.

    Question 3. Position on LGBTQ rights: Your positions on LGBTQ human 
rights would be concerning in any circumstance, but they are especially 
so in this case because of the country where you would be serving. 
Kenya has long criminalized same-sex sexual activity and LGBTQ people 
continue to suffer violence and discrimination. At this moment in 
Kenyan history, it is crucial that the U.S. support human rights in 
Kenya and throughout Africa.

   Will you commit to standing up for human rights for all Kenyans and 
        against laws that criminalize LGBTQ people?

    Answer. Yes. If confirmed, I am committed to defending all groups 
of people who are disenfranchised or discriminated against, including 
Kenya's LGBTI community.

    Question 4. What steps will you take to ensure that Kenya is 
protecting the rights of all citizens, no matter who they are or whom 
they love?

    Answer. As the Universal Declaration of Human Rights states, all 
human beings are born free and equal in dignity and in rights. The 
Kenyan Government has an obligation to protect and respect the human 
rights and fundamental freedoms of their people--including LGBTI 
individuals--and no one should face violence or discrimination. If 
confirmed as Ambassador, I would follow in the footsteps of my 
predecessors as well as colleagues across the globe in actively 
promoting American values, including protecting the rights of all 
citizens. As part of this, and with the assistance and support of my 
colleagues at Post, I would press the Kenyan Government to ensure that 
it protects the rights of all of the country's citizens.

    Question 5. Refugees: I read your comments about refusing Syria 
refugees with concern. I have traveled to Lebanon, where a quarter of 
the population is now Syrian, and Jordan which is hosting approximately 
700,000 refugees under enormous strain to their basic services.
    However, the U.S. is nowhere near accepting those numbers of 
refugees. By April of this year, we had only accepted around 40 Syrian 
refugees.
    I am concerned because, if confirmed, you will be going to a 
country hosting the world's largest refugee camp. The Dadaab refugee 
camp on the Kenya--Somali border hosts almost 250,000 refugees.

   Can you expand on your views about Syrian refugees and what your 
        message to Kenya is regarding refugees?

    Answer. I am a strong advocate of immigration. Some of the greatest 
achievements in our country have come from immigrants. The story of 
America is attractive to the world because we have a strong history of 
taking in the disenfranchised and demoralized and giving them hope. I 
am for giving that opportunity to citizens around the world but I am 
also an advocate for immigration with the proper controls and vetting 
procedures in place. If the desire of others to immigrate infringes 
upon the rights of Americans to live safely and freely, I take issue 
with that. I take issue with that in the same way that many Kenyans 
take issue with immigration infringing upon their ability to live 
safely in their country. Above all, I will uphold the policies of the 
U.S. Government and stand beside and support the Kenyan Government as 
they continue to address immigration and issues related to refugees in 
their country.

    Question 6. What message do you think it sends to Kenya if we send 
an ambassador who has repeatedly talked about turning away refugees 
feeling violence and persecution?

    Answer. I believe that prudent immigration policies that insist on 
adequate vetting and interviewing procedures with the intent of 
protecting its' citizens are good for both our nations. This sends a 
message of compassion to all our citizens as well as those we welcome 
as immigrants. My track record of hiring and caring for the entire 
family of refugees in my business is clear evidence that I am 
empathetic to the plight of refugees.

    Question 7. Would you encourage Kenya to close the camp and force 
Somali and South Sudanese refugees back to those countries?

    Answer. This is a very complex issue and has to be addressed in a 
multifaceted approach. Sending refugees back to their country must take 
place in the right circumstances and is only one response. If confirmed 
I plan on being briefed extensively on this issue and will benefit 
greatly from the counsel I will receive from our experts in the U.S. 
State Department on this issue.

    Question 8. Embassy Management: If confirmed, you will be heading 
one of, if not the largest Embassy in Sub Saharan Africa with several 
priorities including humanitarian response, governance and rule of law, 
counter terrorism, and health.

   Have you spoken to Ambassador Godec, about his experience and his 
        assessment of U.S. priorities in Kenya?

    Answer. I have not yet had the privilege of engaging Ambassador 
Godec. However, I am keenly looking forward to meeting him as I 
continue through this process, and, if confirmed, I would expect to 
routinely seek his counsel.

    Question 9. Past U.S. Ambassadors to Kenya have been career foreign 
service officers. Even Ambassador Gration, who was the last political 
appointee in 30 years had previous diplomatic experience as Envoy to 
Sudan. Do you believe you have the background and experience to lead a 
1,000 person mission with several humanitarian and development 
priorities?

    Answer. Yes. I will be fortunate to have a great team of talented 
people working with me as well. I believe I will be successful in this 
endeavor with my years of experience and attention to important 
national issues.

    Question 10. South Sudan: While there appears to be some progress 
toward a ceasefire and resolution to the civil war, both sides have 
violated past ceasefires almost immediately.
    The White House put out a statement last week expressing skepticism 
that President Kiir and opposition leader Riek Machar ``can oversee a 
peaceful and timely transition to democracy and good governance,'' and 
declared that they ``have not demonstrated the leadership required to 
bring genuine peace and accountable governance.''
    This is as close as the U.S., or any other government, has come to 
suggesting that Kiir and Machar should not be part of a post-peace deal 
transitional government.

   A resolution to the civil war in South Sudan is not possible 
        without the constructive engagement of Kenya. What role do you 
        think Kenya can play in helping bring an end to the conflict 
        and ease some of the humanitarian suffering?

    Answer. I anticipate that Kenya will play a significant diplomatic 
role in the peace talks for South Sudan. While no longer a troop 
contributor to the U.N. Mission in South Sudan (UNMISS), Kenya 
continues to coordinate with the United States and African Union (AU) 
partners to urge South Sudan's warring parties to cease hostilities and 
negotiate an agreement to finally end the conflict. Kenya has an 
important role to play in implementing the July 13, 2018, United 
Nations arms embargo on South Sudan, which is a major step toward 
preventing further escalation of the conflict and protecting civilians. 
Additionally, I believe that Kenya can further help by enforcing asset 
freezes and travel bans on individuals and entities sanctioned by the 
United Nations as well as by investigating and cutting off any illicit 
financial flows from South Sudan into Kenya.

    Question 11. Much of the ill-gotten wealth of the South Sudanese 
Government leaders responsible for instigating and prosecuting the war 
is held in Kenyan banks, and the U.S. Treasury Department has the 
capacity both to investigate the disposition of these funds and to 
increase the reputational risk to these institutions for complicity in 
financing the conflict.

   Will you prioritize South Sudan in your bilateral discussions with 
        Nairobi so that Kenya plays a more productive role as a partner 
        in U.S. diplomatic efforts?

    Answer. If confirmed, I will continue to encourage the Kenyans to 
play a constructive diplomatic role within the South Sudan peace 
process, including implementing the U.N. arms embargo and cutting off 
illicit financial flows from South Sudan into Kenya.

                               __________


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Gardner, Young, 
Menendez, Cardin, Shaheen, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations committee will come to 
order.
    Today, we will consider the nominations of individuals to 
serve our country in two vital roles at the State Department.
    We welcome both of you and thank you for your willingness 
to serve.
    First, we have Clarke Cooper, who had a distinguished 
career in the U.S. Army and currently holds the rank of major. 
Major Cooper has been nominated to Assistant Secretary of State 
for Military--for Political-Military Affairs, or PM. He 
currently serves as the Director of Intelligence Planning for 
the Joint Interagency Task Force--National Campaign Region for 
the--Capital Region for the Joint Special Operations Command. 
That is a long title. I hope you do not have to give that much. 
He has served in the Army on Active Duty since 2013, in a 
variety of Reserve assignments since 2001. He has also worked 
in the State Department in Near-Eastern Affairs and Legislative 
Affairs, in Baghdad, and at the United Nations.
    In addition to other responsibilities, such as defense 
trade controls and security agreement negotiations, the 
Assistant Secretary for PM directly manages approximately 260 
million in foreign assistance through grants, contracts, and 
cooperative agreements while indirectly overseeing an 
additional 7 billion in foreign assistance. Major Cooper has 
demonstrated that he has the capacity to fulfill important 
responsibilities and manage others in a variety of high-
pressure environments. He also understands the important role 
that Congress plays in authorizing and having the oversight of 
this portfolio. I believe he has the experience and ability to 
successfully direct the PM Bureau.
    Again, thank you for being here.
    Our second nominee is Mr. John Richmond. Mr. Richmond is a 
seasoned prosecutor and practitioner of the fight against 
modern slavery. If confirmed, Mr. Richmond would bring with him 
10 years of experience as a Federal prosecutor. During his time 
at the Justice Department, he helped to found the Human 
Trafficking Prosecution Unit. He also spent 4 years in India, 
working on human trafficking issues with International Justice 
Mission.
    Senator Menendez and I wrote the bill that established the 
Global Fund to End Modern Slavery. In order to win this fight, 
we have to leverage investments by other governments with the 
private sector to fund projects that will eliminate modern 
slavery. We appreciate the administration's significant 
contribution to fund that--to a fund that attracted significant 
investments, including from the United Kingdom.
    We cannot forget that modern slavery exists because people 
profit from exploiting others. The victimization of more than 
27 million people suffering in forms of bonded labor and sexual 
servitude around the world will not end until the impunity of 
exploiters end. We hope Mr. Richmond will speak to how he will 
lead the State Department's efforts to address that challenge. 
And I think he has got an extraordinary background to be able 
to do that.
    I want to thank you again, both, for being here. We will 
look forward to your testimony and our discussion of these 
issues.
    And now I will turn to my friend and our distinguished 
Ranking Member, Bob Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    And, to both of the nominees, welcome, to you and your 
families, and congratulations on your nomination.
    Let me start with Mr. Richmond. You have an impressive 
background as a prosecutor, bringing traffickers to justice 
here in the United States, so I want to start off by thanking 
you for your service and your lifelong dedication to these 
issues, something that the Chairman and I have a great passion 
about.
    Recent reports from international organizations and civil 
society estimate that at least 40 million victims of human 
trafficking around the world--men, women, children, including 
people subjected to forced labor, sex trafficking, and force 
marriage. The private sector accounts for about 40 percent of 
those victims, coercing people into making the electronics, 
clothing, and food that end up on store shelves across our 
country. Governments force around 4 million people to work 
around the world, governments that should be protecting and 
empowering the most vulnerable members of their society. So, if 
confirmed, you will face an enormous challenge. As the U.S. 
chief diplomat on this issue, your efforts will require 
emphasis on each of the three Ps: prevention, protection, and 
prosecution. And, while we must do more to put traffickers 
behind bars, we must be equally focused on preventing these 
crimes from happening in the first place, and offering services 
to victims to rebuild their lives and protect them from falling 
prey to traffickers again.
    Critical to evaluating countries' efforts will be ensuring 
the integrity of the Trafficking in Persons Report. Over the 
past few years, political interference has inflicted, from my 
perspective, immense damage on our ability to accurately report 
and rank countries on their efforts to combat human 
trafficking. Senator Corker and I, along with other members of 
this committee, have been working diligently to improve the 
credibility of this reporting process. So, today I look forward 
to hearing how you plan to defend the ranking process from 
political manipulation.
    Finally, I hope that you will explore ways we can better 
target traffickers where it really hurts: their bank accounts. 
Forced labor, alone, generates over $150 billion in profits 
annually, making it the second-largest income source for 
international criminals, next to the drug trade. And recent 
analysis from the Global Slavery Index estimates that over $140 
billion in U.S. imports are at risk of being made through a 
system of modern slavery. We need a comprehensive whole-of-
government strategy.
    Mr. Cooper, the Bureau of Political-Military Affairs is 
responsible for all forms of security assistance to foreign 
countries, including nearly $100 billion annually in arms sales 
and more than $5 billion in military assistance to foreign 
militaries. Among other worthy programs, Political-Mil is 
charged with implementing programs to stop the proliferation of 
unregulated arms, including small arms and light weapons.
    With that directive in mind, I am appalled at the recent 
actions by the Department, and by the Political-Military 
section in particular, to allow the Internet publication of 
blueprints for 3D printable firearms in the United States and 
around the world. Now, I acknowledge that you are not serving 
in the administration at that time that this decision was made, 
but, as a security professional, I hope that, when you get 
there, if confirmed, you are going--if this issue is still 
look--is still raging, I hope you will add your experience to 
bear. I can only imagine the reaction of those charged with 
safeguarding public facilities, as airports, schools, and 
courthouses, to a dangerous and incredibly irresponsible action 
by the Department.
    I take the committee's oversight of these programs 
extremely seriously. I personally review all proposed arms 
sales before they are submitted to the committee for the formal 
congressional review period. Weapons sales and military aid are 
U.S. national security tools that we should leverage to achieve 
our interests consistent with our values. I am frustrated that 
the administration has not articulated any comprehensive 
strategy for any region or any country, yet still insists on 
expediting arms sales.
    Finally, as manifested most recently in the conventional 
arms transfer policy, the administration has a troubling habit 
of downgrading a country's human rights practices and democracy 
as considerations while charging the State Department to become 
more active agents of U.S. weapons abroad, often to governments 
with troubling records. I want U.S. companies to be able to 
sell what they produce anywhere in the world, but, when we sell 
it to an end user, a country, that uses it outside of 
internationally recognized standards and applicable law, that 
is a problem, because then we are implicit in it. Human rights 
are not just a nice gesture, they are absolutely crucial to 
peace, justice, and the spread of democracy, and therefore, 
stability around the world. We have to ask why we, as a 
Nation--what we want America to be, a beacon of hope for the 
oppressed or simply the biggest arms merchant to the world?
    These are the issues that I will look forward to discussing 
with both of you today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    With that, we are glad to have you both here. If you would, 
just in the order that I mentioned your two nominations--if you 
would, summarize your comments in about 5 minutes. Any written 
materials that you would like to make a part of the record, we 
will do so, without objection.
    And, Mr. Cooper, if you would go ahead and begin, we would 
appreciate it.

STATEMENT OF MAJOR R. CLARKE COOPER, OF FLORIDA, NOMINEE TO BE 
 AN ASSISTANT SECRETARY OF STATE FOR POLITICAL-MILITARY AFFAIRS

    Major Cooper. Thank you, Chairman Corker, Ranking Member 
Menendez, and distinguished members of the committee.
    It is an honor to appear before you today as the nominee 
for Assistant Secretary for Political-Military Affairs.
    I am humbled by the confidence placed in me by President 
Trump and Secretary Pompeo, and, if confirmed, will be honored 
to work with the dedicated professionals at the Department of 
State.
    None of this would be possible without the very important 
people in my life who are here with me today. I am joined by my 
incredible spouse and fellow combat veteran, Michael Marin; my 
intrepid mother, Tracy Cooper-Tuckman; my dear friends and 
esteemed colleagues. Thank you for your love and support.
    For two decades, it has been a privilege to serve in many 
positions of responsibility and trust in national security 
affairs, ranging from tactical-level bilateral security 
assistance work in Iraq to operational-level intelligence 
planning with U.S. Interagency and among key partner nations, 
as well as strategic-level multilateral peacekeeping mandate 
review at the United Nations. Over the breadth of my career, I 
have been fortunate to serve in civilian, diplomatic, and 
military roles. All these positions, including my diplomatic 
and military tours in the Middle East and Africa, comprise 
components of strategically-aligned capacity-building, 
intelligence, and security assistance with host-nation 
governments and partner militaries. Each of these experiences 
provided opportunity to lead personnel and coordinate with 
foreign partners.
    One highlight of my career has been the work I have done to 
advance operational and strategic-level engagement with the 
Department of State's Bureau of Political-Military Affairs. I 
have seen firsthand the level of professionalism and experience 
the bureau brings to the Department's political-military work. 
My bilateral and multilateral work with partner nations on 
security assistance, intelligence, and force development has 
given me an applied application for the lead role the 
Department plays in development of security partnerships and 
advancement of U.S. national security.
    The Political-Military Bureau executes some of our Nation's 
most important policy decisions, negotiations, and treaties. 
The purpose-driven professionals in the Bureau are a unique mix 
of civilian, military, and Foreign Service personnel who 
negotiate our status-of-forces agreements globally, support 
humanitarian demining programs, promote professionalization of 
foreign militaries, and interoperability through training and 
assistance programs, and ensure our foreign military sales are 
consistent with our foreign policy and values. If confirmed, I 
look forward to the opportunity to work with such dedicated 
colleagues advancing the Bureau's significant contribution to 
our national security.
    The mission of the Political-Military Bureau is to build 
enduring security partnerships to advance U.S. national 
security objectives. If confirmed, this will be my chief 
priority. I look forward to further connecting interagency, 
enhancing national and economic security interests, and 
enabling our partners.
    Our diplomacy is stronger when it is fully coordinated 
across the interagency and is synchronized with our military 
planning. An important function of the Political-Military 
Bureau is managing the political advisors assigned to military 
commands around the globe to ensure full interagency 
coordination. Further, the Bureau plays a key transregional 
role in coordinating the Department's strategic country plans, 
regional plans, and participation in military exercises to 
ensure U.S. diplomacy is at the forefront of our international 
relations.
    If confirmed, I commit to ensuring our sales of arms and 
defense trade are key implements of foreign policy where our 
relations with allies and partners, and our commitment to human 
rights, remain central in our decisionmaking. The Bureau must 
also work closely with industry. Alignment of national and 
economic security interests to create jobs and increase U.S. 
competitiveness in key markets helps maintain a technological 
edge over potential adversaries while enhancing the ability of 
the defense industrial base. If confirmed, U.S. producers and 
exporters can be confident they have a partner in the Bureau 
who diligently supports them to advance our strategic 
objectives and support our economy.
    In today's complex environment, enabling partners' 
capabilities to address transregional threats is incumbent upon 
the Bureau to ensure there is burden-sharing on maintaining 
global security. Security assistance is a powerful tool the 
United States can apply to strengthen our allies and partners 
around the world and mitigate threats requiring collective 
response. I know firsthand from building surrogate forces and 
training partner forces, U.S. security assistance supports 
regional stability in the face of threats. Our dedicated 
assistance reassures allies and partners, and provides the 
means for them to counter destabilizing and malign activities, 
such as violent extremist groups and their spheres, in a 
transregional context.
    Like you, I currently serve under the same solemn oath to 
the Constitution. Today, I serve at the Joint Special 
Operations Command, and it would be a tremendous honor to again 
further support and defend the Constitution of the United 
States at the Department of State.
    Mr. Chairman, Mr. Ranking Member, and members of the 
committee, I am honored to be considered for this critical 
appointment. Thank you for the opportunity to appear here 
today. And I welcome your comments and questions.
    [Major Cooper's prepared statement follows:]


              Prepared Statement of Major R. Clarke Cooper

    Thank you, Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee. It is an honor to appear before 
you today as the nominee for Assistant Secretary of State for Political 
Military Affairs. I am humbled by the confidence placed in me by 
President Trump and Secretary Pompeo, and if confirmed, will be honored 
to work with the dedicated professionals at the Department of State.
    None of this would be possible without the very important people in 
my life who are here with me today. I am joined today by my incredible 
spouse and fellow combat veteran, Michael Marin, my intrepid mother, 
Tracy Cooper-Tuckman, my dear friends, and esteemed colleagues. Thank 
you for your love and support.
    For two decades, it has been a privilege to serve in many positions 
of responsibility and trust in national security affairs ranging from 
tactical level bilateral security assistance work in Iraq, to 
operational level intelligence planning within the U.S. interagency and 
among key partner nations, as well as strategic level multilateral 
peace keeping mandate review at the United Nations. Over the breadth of 
my career, I have been fortunate to serve in civilian, diplomatic, and 
military roles. All these positions, including my diplomatic and 
military tours in the Middle East and Africa, comprised components of 
strategically aligned capacity building, intelligence, and security 
assistance with host nation governments and partner militaries. Each of 
these experiences provided opportunity to lead personnel and coordinate 
with foreign partners.
    One highlight of my career has been the work I have done to advance 
operational and strategic level engagement with the Department of 
State's Bureau of Political-Military Affairs. I have seen first-hand 
the level of professionalism and experience the bureau brings to the 
Department's political military work. My bilateral and multilateral 
work with partner nations on security assistance, intelligence, and 
force development has given me an applied appreciation for the lead 
role the Department plays in development of security partnerships, and 
advancement of U.S. national security.
    The Political Military Bureau executes some of our nation's most 
important policy decisions, negotiations, and treaties. The purpose 
driven professionals in the bureau are a unique mix of civilian, 
military, and Foreign Service personnel who negotiate our status of 
forces agreements globally, support humanitarian demining programs, 
promote professionalization of foreign militaries and interoperability 
through training and assistance programs, and ensure our foreign 
military sales are consistent with our foreign policy and values. If 
confirmed, I look forward to the opportunity to work with such 
dedicated colleagues advancing the bureau's significant contribution to 
our national security.
    The mission of the Political Military Bureau is to build enduring 
security partnerships to advance U.S. national security objectives. If 
confirmed, this will be my chief priority. I look forward to further 
connecting the interagency, enhancing U.S. national and economic 
security interests, and enabling our partners.
    Our diplomacy is stronger when it is fully coordinated across the 
interagency and is synchronized with our military planning. An 
important function of the Political Military Bureau is managing the 
political advisors assigned to military commands around the globe to 
ensure full interagency coordination. Further, the bureau plays a key 
transregional role in coordinating the Department's strategic country 
plans, regional plans, and participation in military exercises to 
ensure U.S. diplomacy is at the forefront of our international 
relations.
    If confirmed, I commit to ensuring our arms sales and defense trade 
are key implements of foreign policy where our relations with allies 
and partners, and our commitment to human rights remain central to our 
decision-making. The bureau must also work closely with industry.
    Alignment of national and economic security interests to create 
jobs and increase U.S. competitiveness in key markets helps maintain a 
technological edge over potential adversaries while enhancing the 
ability of the defense industrial base. If confirmed, U.S producers and 
exporters can be confident they have a partner in the bureau who 
diligently supports them to advance our strategic objectives and 
support our economy.
    In today's complex environment, enabling partners' capabilities to 
address transregional threats is incumbent upon the bureau to ensure 
there is burden sharing on maintaining global security. Security 
assistance is a powerful tool the United States can apply to strengthen 
our allies and partners around the world and mitigate threats requiring 
a collective response. I know firsthand from building surrogate forces 
and training partner forces, U.S. security assistance supports regional 
stability in the face of terrorist threats. Our dedicated assistance 
reassures allies and partners, and provides the means for them to 
counter destabilizing and malign activities of violent extremist 
groups' spheres in a transregional context.
    Like you, I currently serve under the same solemn oath to the 
Constitution. Today, I serve at the Joint Special Operations Command, 
and it would be a tremendous honor to, again, further support and 
defend the Constitution of the United States at the Department of 
State.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
am honored to be considered for this critical appointment. Thank you 
for the opportunity to appear before you today, and I welcome your 
comments and questions.


    The Chairman. Thank you.
    Mr. Richmond.

 STATEMENT OF JOHN COTTON RICHMOND, OF VIRGINIA, NOMINEE TO BE 
DIRECTOR OF THE OFFICE TO MONITOR AND COMBAT TRAFFICKING, WITH 
                THE RANK OF AMBASSADOR AT LARGE

    Mr. Richmond. Chairman Corker, Ranking Member Menendez, 
members of the committee, thank you for this hearing to 
consider my nomination to be the U.S. Ambassador at Large to 
Monitor and Combat Trafficking in Persons.
    I am honored and humbled by the confidence President Trump 
and Secretary Pompeo have placed in me to consider--to be 
considered for this position.
    As I begin, I would like to thank Kari Johnstone and her 
team at the Office to Monitor and Combat Trafficking in 
Persons. Kari has led that office for over a year while they 
have not had an Ambassador. And she and her team of career 
professionals have done an outstanding job.
    I also want to acknowledge that, for the last 18 years, the 
office has stood as the leading government agency in the effort 
to battle traffickers. I am grateful that the four living 
former Trafficking Ambassadors have offered their wise counsel 
and guidance, should I be confirmed.
    I am also thankful that my wife of 25 years is here with 
me. The lovely and talented Linda Marie, along with our three 
bright, courageous, and spirited children, Grace Lauren, James, 
and Mount, have made continued sacrifices for me to be able to 
do this work. Their support and prayers are very helpful, and I 
am grateful to them.
    I also want to thank my parents, who could not be here 
today. They instilled in me a strong work ethic, a clear sense 
of justice, and a sustained empathy for those who are 
vulnerable.
    I also have friends here from high school, from college, 
from law school. To have lifelong friends is a blessing, and I 
have been uncommonly blessed.
    My introduction to modern slavery occurred early in my 
legal career, when I was practicing law in Virginia. There was 
a new organization, a new anti-trafficking organization at the 
time, International Justice Mission. And they offered me an 
opportunity to go to India to work on labor trafficking issues. 
Soon, my wife, who was 8 months pregnant at the time, and our 
14-month-old daughter found ourselves on a plane bound for 
Chennai, India, where we lived for a little over 3 years, 
working and focused on labor trafficking in brick kilns, rice 
mills, agricultural fields, and other facilities. And working 
on those cases in India taught me an incredibly important 
lesson, the fact that the reason we do this work is that every 
single person matters.
    The Declaration of Independence begins with this 
fundamental principle, that, ``All have been endowed by their 
Creator with certain unalienable rights.'' But, the women and 
men who commit this crime specifically work to alienate 
individuals from those rights. The Constitution's 13th 
Amendment specifically outlawed slavery. And in 2000, through 
the Trafficking Victims Protection Act, Congress expanded those 
protections in response to traffickers' modern strategies to 
deny people's individual freedoms.
    C.S. Lewis wrote, ``The freedom of a creature must mean 
freedom to choose, and choice implies the existence of things 
to choose between.'' Modern traffickers work to deny people the 
option to choose. Many victims do not get to decide when they 
wake up, where they work, or who touches their bodies.
    When our time in India was over, I continued in the battle 
against trafficking as a Federal prosecutor at the U.S. 
Department of Justice, working labor and sex trafficking cases 
in a victim-centered, trauma-informed way that always focused 
on the dignity of survivors. The year after I joined DOJ, I was 
honored to be selected to be a founding member of the Human 
Trafficking Prosecution Unit, and my work at DOJ included the 
United Nations portfolio, where I worked on the implementation 
of the Palermo Protocol and training nonprofits, law 
enforcement, prosecutors, and judges around the world. Several 
of my fellow prosecutors are here today, and we have been in 
the trenches together, working cases in a victim-centered way 
to make sure that we secure convictions and get some of the 
worst traffickers in the United States, and seeing the 
inspiring story and resiliency of so many survivors.
    Almost 2 and a half years ago, I stepped down from my 
position at the Department of Justice to found the Human 
Trafficking Institute with other experienced trafficking 
prosecutors and law enforcement professionals. And with a deep 
bench of talent, the Institute is working on long-term projects 
to improve the delivery system of justice. My colleagues at the 
Human Trafficking Institute have graciously encouraged me to 
appear before you today, and, if confirmed, to reenter public 
service.
    Collaborating with survivors is critical to combating human 
trafficking. Throughout my work, survivors have taught me a 
great deal. They are key voices in developing effective anti-
trafficking policies. But, I have also learned a great deal 
from the traffickers, from the women and men who commit this 
crime, about their methods and their motivations. Traffickers 
benefit from the persistent myths. For instance, too often, 
media representations about trafficking ignore adult victims, 
labor trafficking victims, and those exploited in our own 
borders. Crimes of movement, like human smuggling, get 
conflated with crimes of coercion, like human trafficking. And 
this confusion benefits the traffickers, because it inhibits 
victim identification.
    Traffickers also benefit from chronically low rates of 
prosecution. Many operate with impunity. Meanwhile, human 
trafficking victims are too often the ones who fear 
prosecution. The principle of nonprosecution of victims must be 
a promise, and we must fulfill that promise, that individual 
victims should not be prosecuted for the unlawful acts their 
traffickers force them to commit. And I am grateful for the 
survivors that have taught me these lessons, including the 
survivors who are here in this room today.
    This is, indeed, a special time in history. For almost 
2,000 years, there has been some form of legal slavery. And, 
just in the last 200 years, we have seen every country in the 
world pass some sort of law outlawing slavery. The question is, 
Will those parchment protections of law be extended to the 
individuals they were intended to protect? I think this is a 
massive historic hinge, and I think the door of freedom is 
poised to swing wide.
    The Trafficking Office stands at a place--a critical role 
to answer that question. And, if confirmed, I will work 
tirelessly to fulfill the Declaration's ``self-evident truth,'' 
the 13th Amendment's mandate, and the Trafficking Victim 
Protection Act's promise. If confirmed, I will bring to this 
office my experience working on international and domestic 
cases, labor and sex trafficking cases involving children 
victims, adult victims, citizen and undocumented individuals. 
If confirmed, I will work to ensure the continued integrity of 
the TIP Report, and make sure that it continues to be the gold 
standard for diplomatic relations regarding trafficking. And, 
if confirmed, I will passionately advocate for the rights of 
individuals to be free from traffickers, and for survivors to 
have access to the services that they need.
    Working collaboratively with this government, with this 
committee, with other governments around the world, with civil 
society, we will be able to answer that question and make sure 
that the laws--the protections of the laws are extended to the 
people who need them most. And we will do it because all people 
matter.
    Thank you for considering my nomination. I look forward to 
your questions.
    [Mr. Richmond's prepared statement follows:]


               Prepared Statement of John Cotton Richmond

    Chairman Corker, Ranking Member Menendez, and members of the 
committee, thank you for this hearing to consider my nomination to be 
the U.S. Ambassador-at-Large to Monitor and Combat Trafficking in 
Persons. I am honored and humbled by the confidence President Trump and 
Secretary Pompeo have placed in me to serve our nation in this 
position.
    As I begin, I want to thank Kari Johnstone and the team at the 
Office to Monitor and Combat Trafficking in Persons. Kari has been 
Acting Director for over a year while the office operated without an 
Ambassador and she and the team have done a wonderful job.
    I want to acknowledge that for the last 18 years the Office has 
stood as the leading government office in the battle against 
traffickers. I am grateful for the work of the prior five leaders of 
the Office: Ambassadors Nancy Ely-Raphel, John Miller, Mark Lagon, Luis 
CdeBaca, and Susan Coppedge. Bridging multiple administrations, they 
have guided this movement. Unfortunately, Ambassador Miller passed away 
last year after a courageous battle against cancer. I am grateful that 
the other four living former Trafficking Ambassadors have offered their 
support, wise counsel, and guidance, should I be confirmed.
    I am also thankful that my wife, of twenty-five years, is here with 
me. The lovely and talented Linda Marie, along with our three bright, 
courageous, and spirited children, Grace-Lauren, James, and Mount, have 
made continued sacrifices for me to engage in this work. Their support 
and prayers enable me to assume the awesome responsibility of this 
position, if confirmed.
    I also want to thank my parents, who unfortunately could not be 
here today. They instilled in me a strong work ethic, a clear sense of 
justice, and a sustained empathy for the vulnerable. I am also grateful 
to have friends from High School, College, and Law School here today. 
Since we were kids we have weathered life together. To have friends 
that last a lifetime is a blessing, and I have been uncommonly blessed.
    My introduction to modern slavery occurred early in my legal career 
when I was practicing law in Virginia. International Justice Mission, a 
relatively new anti-trafficking organization at that time, invited me 
to pioneer an office in South India. Soon my wife, who was 8 months 
pregnant at the time, our 14-month-old daughter, and I found ourselves 
on a plane to India. I worked there for just over 3 years, tackling 
labor trafficking in agricultural fields, brick kilns, rice mills, and 
other facilities. Working on trafficking cases in India impressed upon 
me the primary reason this work is essential--the fact that every 
person has inherent value--that all people matter.
    The Declaration of Independence begins with the foundational 
principle: that all have been endowed by their Creator with certain 
unalienable rights. The women and men who choose to commit the crime of 
trafficking in persons work to alienate people from those rights.
    The Constitution's 13th Amendment specifically outlawed slavery and 
in 2000, through the Trafficking Victims Protection Act, Congress 
expanded protections, in response to traffickers' modern strategies to 
deny individuals' freedom. C.S. Lewis wrote, ``The freedom of a 
creature must mean freedom to choose and choice implies the existence 
of things to choose between.'' Modern traffickers specifically work to 
deny people the option to choose. Many victims do not get to decide 
when they wake up, where they work, or who touches their bodies.
    When our time in India was over, I continued in the battle against 
trafficking at the U.S. Department of Justice. For over a decade, I 
served as a federal prosecutor, investigating and prosecuting victim-
centered labor trafficking and sex trafficking cases. The year after I 
joined DOJ, I was honored to be selected as a founding member of the 
Human Trafficking Prosecution Unit. My work at DOJ included the United 
Nations portfolio, working on the implementation of Palermo Protocol 
and training nonprofits, law enforcement, prosecutors, and judges 
throughout the world. Several of my fellow prosecutors are here today. 
We have been in the trenches together working cases in a victim-
centered, trauma informed way to secure convictions against some of the 
worst traffickers in the United States and seeing the inspiring 
resiliency of survivors.
    Almost two and a half years ago, I stepped down from my position at 
DOJ to launch the Human Trafficking Institute, with other experienced 
trafficking prosecutors and law enforcement professionals. With a deep 
bench of talent, the Institute is working on longterm projects to 
improve the delivery system of justice. My colleagues at the Human 
Trafficking Institute have graciously encouraged me to appear before 
you here today and, if confirmed, re-enter public service.
    Collaborating with survivors is critical to combating human 
trafficking. Throughout my work, survivors have taught me a great deal. 
Survivor voices are key to developing effective anti-trafficking 
policy. I have also learned from the women and men who commit this 
crime and I have gained valuable insights into their methods and 
motivations.
    Traffickers benefit from persistent myths. For instance, far too 
often media representations about trafficking ignore the existence of 
adult victims, labor trafficking victims, and those who are exploited 
within our own borders. Crimes of movement, like human smuggling, 
become conflated with crimes of coercion, like human trafficking. These 
areas of confusion benefit traffickers because they inhibit victim 
identification.
    Traffickers also benefit from low rates of prosecution. Many 
operate with impunity. Meanwhile, human trafficking victims are ones to 
fear prosecution. Too often they are prosecuted for the unlawful acts 
their trafficker requires them to commit. The ``non-prosecution of 
victims'' principle must be turned into a promise and we must fulfill 
that promise. Survivors should receive tailored services, not time 
behind bars. I am grateful for the several survivors who are here 
today.
    This is a special time in history to be combating trafficking. For 
almost 2000 years, there was some form of legal slavery in the world. 
However, in the last 200 years that has completely changed, as every 
country in the world now has some sort of law against slavery. This is 
a massive historic hinge and the door of freedom is poised to swing 
wide.
    The question for us in this moment of history, is whether we can 
extend the parchment protections of law to the victims in need of those 
protections. Millions of exploited people all over the world are 
waiting for the answer to that question. The TIP Office occupies a 
critical role in providing the answer.

   If confirmed, I will work tirelessly to fulfill the Declaration's 
        self-evident truth, the 13th Amendment's mandate, and the 
        Trafficking Victim Protection Act's promise.
   If confirmed, I will bring to office my experience working 
        international and domestic trafficking cases, labor and sex 
        trafficking cases, involving minors, adults, citizens, and 
        foreign nationals from around the world.
   If confirmed, I will work to ensure the continued integrity of the 
        TIP Report, the gold standard in diplomatic tools for engaging 
        governments on human trafficking.
   If confirmed, I will passionately advocate for the rights of 
        individuals to be free from traffickers and for survivors to 
        have access services to help them recover and rebuild.

    Working collaboratively with U.S. and foreign government officials, 
nonprofits, this committee, and the rest of Congress, we will answer 
the question and deliver the law's protection allowing victims to step 
into freedom as survivors, because all people matter.
    Thank you for considering me to represent our country in this 
effort, and I welcome your questions.


    The Chairman. Thank you both.
    Without objection, I would like to enter into the record an 
introduction that Representative Ros-Lehtinen wanted to make, 
herself. She could not be here, but we will enter it into the 
record, without objection.
    [The information referred to follows:]


          Statement Submitted by Former Congresswoman Ileana 
           Ros-Lehtinen in Support of Major R. Clarke Cooper

    It has been my distinct pleasure to know R. Clarke Cooper for over 
two decades, beginning when he first arrived from Florida in 1994 to 
serve in my DC office, through a career of exemplary public service, to 
this well-deserved nomination. I can personally and sincerely attest to 
his constant dedication to our great nation and advocacy for all 
Americans. An Army combat veteran and former diplomat, Clarke is the 
right nominee at the right time for Assistant Secretary of State for 
Political Military Affairs.
    Clarke currently serves as the Director of Intelligence Planning 
for Joint Special Operations Command's Joint Inter-Agency Task Force--
National Capital Region, and recent leadership posts include Chief of 
the Counter-terrorism Network Discovery Team for the U.S. Africa 
Command, Senior Intelligence Analyst for the Combined Joint Task 
Force--Horn of Africa, Director of Intelligence for Team Libya under 
Special Operations Command Africa, and Chief of Intelligence Analysis & 
Production for Joint Special Operations Task Force-Trans-Sahara.
    Clarke's specialized background in foreign policy, 
intergovernmental affairs, counter-terrorism, and rule of law is 
particularly focused on Africa and the Middle East region. His insights 
provide for unique perspectives of the interaction between politics and 
economics in these parts of the world and are grounded in Clarke' s 
extensive operational experience. His civilian and military tours in 
Africa and the Middle East include capacity building with host nation 
governments and partner militaries . Throughout his career, at home and 
abroad, Clarke has remained an advocate for freedom and human rights.
    In 2010, Clarke was elected Executive Director of Log Cabin 
Republicans (LCR) where we worked together to further advocate equal 
rights and promote legislation to provide basic fairness for all 
Americans. I am especially proud of Clarke's efforts to successfully 
secure the necessary Republican votes in the House and Senate to repeal 
the ``Don't Ask, Don't Tell'' (DADT) statute excluding gays from 
military service. To build a more inclusive Republican Party, Clarke 
aggressively managed LCR's operations, state and local chapters 
nationwide, LCR's federal political action committee and state 
political action committees, and even served on the Republican National 
committee's Finance committee.
    Clarke served both terms of the George W. Bush administration where 
we often worked with each other. From 2007-2009, he was Counselor at 
the United States Mission to the United Nations (USUN) for United 
Nations (UN) management and reform where we coordinated U.S. advocacy 
for transparency, accountability, and reform of the U.N.. He 
concurrently served as Alternate Representative to the U.N. Security 
Council and as Delegate to the U.N. Fifth committee (budget). From 
2006-2007 , he was the Senior Legislative Advisor for the Bureau of 
Near Eastern Affairs, Office of Iraq Affairs, where he successfully 
worked with Congress to secure funding for Iraq capacity building and 
reconstruction programs.
    From 2005 through 2006, Clarke served as the Legislative Affairs 
Advisor for U.S. Embassy-Baghdad , where he was Congress' initial point 
of contact in Iraq, and where I had the pleasure of coordinating with 
Clarke a bipartisan Congressional delegation visit to conduct oversight 
on Iraq capacity building and security assistance. It was deeply 
gratifying to see how Clarke had grown in the decade since working in 
my office, helping members of congress like myself provide necessary 
oversight and ensure our troops had everything they needed to 
accomplish their mission. At that time, I was Chairman of the House 
Foreign Affairs Subcommittee on the Middle East and Central Asia and 
was deeply impressed by Clarke's knowledge of the region and his 
capacity for blending the intensely connected worlds of politics and 
security, an auspicious sign for someone who is now the nominee for 
Assistant Secretary for State's Bureau of Political-Military Affairs. 
Early in 2005, Clarke had served as the Security and Rule of Law Policy 
Advisor to the Iraqi Ministry of Interior to ensure security assistance 
and law enforcement capacity building comported with civil society and 
rule of law. Clarke initially came to Iraq as an Army intelligence 
officer in 2004 during Operation Iraqi Freedom.
    Prior to 9-11, Clarke entered the Bush administration in 2001 as 
the Assistant Director of the National Park Service for Legislative and 
Congressional Affairs after successfully helping navigate the 
Comprehensive Everglades Restoration Plan with Florida Governor Jeb 
Bush. Between 1999 and 2001, Cooper was Deputy Director of the State of 
Florida Federal Affairs Office in Washington where he consistently 
proved himself to be hardworking and results driven on behalf of his 
home state. His first position after serving on my legislative staff 
was as Director of Governmental Affairs for the Miccosukee Tribe of 
Florida from 1995-1999 , where he secured bipartisan support for the 
Tribe' s trust lands and sovereign status. As a legislative aide in my 
office, Clarke proved to be a public servant of exceptional character 
and work ethic and someone who I knew would go on to do great things.
    Clarke was raised in Tallahassee, Florida where in his youth he 
attained the rank of Eagle Scout, and graduated The Florida State 
University. This fellow Floridian consistently represents his home 
state well, and as Assistant Secretary of State for Political Military 
Affairs, R. Clarke Cooper will undoubtedly represent the United States 
of America's interests and values before the world with great aplomb, 
integrity, and effectiveness.


    The Chairman. Thank you both for your testimony and for 
introducing your family and friends.
    And, with that, I will turn to our Ranking Member and 
withhold my time.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your statement.
    Mr. Richmond, what is your view of the T visa as a tool to 
deal with trafficking victims?
    Mr. Richmond. The trafficking victims' access to a T visa, 
or a visa that allows them to stay in the country, is a 
critical victim protection. One of the incredible things about 
the Trafficking Victims Protection Act is, it created two 
different systems. One is continued presence, which is status 
to remain in the country while the trial is going on, and so 
the investigation can occur. And that is initiated by law 
enforcement. But the T visa is a self-petitioning visa. It is a 
visa that trafficking victims can petition without necessarily 
having to go through law enforcement, although a law 
enforcement endorsement is often helpful. We want to encourage 
individuals to apply for T visas, and are glad that they are 
able to get them.
    Senator Menendez. Well, I appreciate that answer. Recently, 
the U.S. Citizenship and Immigration Service issued guidelines 
that will discourage many bona fide trafficking victims from 
applying for T visas. So, if confirmed, I will hope you will 
bring your expertise to bear to inform them that that is not 
necessarily what we want if we truly want to ultimately be able 
to deal with the challenge of trafficking victims who may be in 
the country, but in an undocumented fashion.
    What is your view on ensuring that merit alone, and not 
trade or geopolitical considerations, determine tier placements 
for countries in the annual TIP Report?
    Mr. Richmond. The Trafficking in Persons Report must be a 
fact-based report. I am committed to making sure that we have 
an evidenced-based approach to putting together the Trafficking 
in Persons Report, both in its rankings and its narratives, 
working closely with the regional bureaus to determine what 
those rankings should be. But, if it is going to be an 
effective tool, if it will continue to be the gold standard, it 
will be because everyone can rely on its integrity.
    Senator Menendez. So, how would you handle a situation, 
where, for example, trade or other considerations threaten to 
influence the tier rankings, even though that particular 
country clearly is in violation of our laws, in terms of what 
level they should be ranked on?
    Mr. Richmond. Senator, I would approach those discussions 
very much like I approached cases as a prosecutor, and that is 
marshaling the information, making sure it is a fact-based 
determination, and being an advocate for the position of the 
office. It is critical that each of the rankings be made clear.
    One of the aspects I think could be helpful is making sure 
that the regional bureaus and others working on trade 
negotiations or other types of negotiations understood that a 
fact-based report could actually help them in that, that 
adjustments in the facts do not actually improve bargaining 
position; it may actually make the foundation of those 
negotiations shaky.
    Senator Menendez. So, you advocate--you will be independent 
in your advocacy, based upon the law, regardless of other 
factors that others may consider. You will be an independent 
advocate of your--you may not win, at the end of the day, but 
you will be an independent advocate.
    Mr. Richmond. Absolutely.
    Senator Menendez. Because many of my colleagues and I 
believe that the State Department up and--upgraded Malaysia, 
for example, to avoid my amendment that became law that would 
bar fast-track procedures for certain trade agreements because 
of Malaysia's poor record on combating human trafficking. And I 
do not want to see that happen again.
    Would you agree that countries should be taking actions 
against both forms of trafficking--sex trafficking and forced 
labor--in order to meet the significant-effort standard, as 
defined in the Trafficking Victims Protection Act?
    Mr. Richmond. Senator, the Trafficking Victims Protection 
Act, as well as the U.N. Protocol Against Trafficking in 
Persons, requires a broad approach in fighting all forms of 
human trafficking--labor trafficking and sex trafficking--of 
any individual. And so, we want to make sure that every country 
is evaluated based on their approach in handling labor 
trafficking as well as sex trafficking.
    Senator Menendez. I appreciate that, because, for example, 
in Cuba, Cuba forces its doctors to go abroad and work in other 
countries, and then have their wages sent back to the regime. 
And yet, somehow we did not consider that a labor slavery. So, 
how we apply these laws have real consequences in real terms to 
people's lives across the globe, as well as to our own 
policies.
    Let me just turn, a minute, to Mr. Cooper.
    Mr. Cooper, do you believe that human rights record of a 
recipient of U.S. security assistance should be considered 
before providing assistance?
    Major Cooper. Thank you, Senator Menendez.
    It is a moral and legal obligation for us to consider it. 
So, in short, yes. It is a component of every sale and every 
transfer, and it is a broader consideration when we are looking 
at any activity that is representative of our security 
interests, but also of our values.
    Senator Menendez. The latest conventional arms transfer 
policy, unfortunately, took out the specific reference to human 
rights record of state recipients of U.S. security assistance. 
How will you ensure that U.S. security assistance is not used 
to perpetrate human rights abuses?
    Major Cooper. Thank you, Senator.
    As far as the conventional arms transfer, the processes are 
still in place, and, if confirmed, would ensure that, again, it 
is not just a legal obligation, it is a moral obligation to 
ensure that that is a consideration. A transfer is not 
guaranteed. Training is not a guaranteed. And security 
assistance is not guaranteed.
    Senator Menendez. I have other questions, Mr. Chairman, but 
I will yield for----
    The Chairman. Let me just mention, before turning to 
Senator Young, to you, Mr. Richmond. I know that we talked a 
little bit about this global effort to end modern slavery, that 
this entire committee unanimously supported and then was 
supported unanimously in the Senate. A big part of that is 
leveraging other countries. With 27 million people enslaved 
around the world, we have to lead an effort not unlike what was 
done with PEPFAR, where we bring other countries together with 
us. I know there is an effort right now by many to sort of 
split out what is happening into smaller components, but that 
would lose the leveraging effect that we have been able to get 
with the United Kingdom and other large private investors 
around the world that want to end modern slavery. And you are 
aware of the importance of leverage and the importance of 
bringing other countries together, and, I assume, are also 
aware that if we dilute our effort into little micro elements, 
that leverage will never take place, and we will never bring 
the world community together to end modern slavery.
    Mr. Richmond. Senator, I am familiar with the Program to 
End Modern Slavery at the State Department, and am grateful for 
your leadership and the leadership of this committee in getting 
that through Congress to establish that program. The leverage 
piece is an incredibly significant aspect of that. And I have 
been encouraged by the Global Fund, the first recipient of the 
Program to End Modern Slavery, and that it has, in its first 
year, have commitments to more than double the first $25 
million tranche that has been extended. That is encouraging and 
powerful. The idea that there could be a PEPFAR-like fund to 
help combat trafficking is incredibly encouraging.
    I am also impressed by the focus on metrics and measurement 
within the Program to End Modern Slavery, the requirement that 
we pushed forward. Far too often, I think this movement has 
been motivated by anecdote and emotion, which can be quite 
powerful, but, to have research and scholarship and metrics 
apply, as well, is very encouraging as we work to end impunity.
    The Chairman. I just would point out that, because of what 
happened last year, $25 million went into a fund, the United 
Kingdom put in 25 million, and now there is a private 
individual in another country that is looking at putting in 25 
million. So, with our 25, we are going to end up with 75. Our 
goal is to end up with a billion and a half, as you know. But, 
there are forces around here--when there is money there, then 
people--everybody wants to participate, but if we start losing 
that focus, there will be no leverage. And so, we are tripling 
our efforts, it looks like. Matter of fact, if this next 25 
ends up being placed in the same way, it looks like the United 
Kingdom is going to come in with another 25. So, the leverage 
is phenomenal, but that goes away if we allow this effort to 
dissipate and be broken out into micro units.
    With that, Senator Young.
    Senator Young. Thank you, Chairman.
    Mr. Cooper, welcome. It was great visiting with you 
yesterday. As Assistant Secretary of State for Political-
Military Affairs, you would have significant responsibilities 
as principal liaison to the Department of Defense, and you will 
provide policy direction regarding defense strategy and plans. 
The 2018 National Defense Strategy, I think, is fairly broadly 
regarded as a serious document and an improvement on what we 
have seen in some prior years. As good as that document is, I 
think there is continued work that needs to be done with 
respect to development of cyber strategy and doctrine. This, of 
course, is a timely topic, with all the concerns pertaining to 
Facebook and Russia and their past involvement, their potential 
future efforts to undermine our democratic processes.
    I believe cyber threats have outpaced our development of 
cyber strategy and cyber doctrine. And this is a tough area, 
because there are a lot of ambiguities associated with the 
nature of different threats. There is a lack of understanding 
about the threats and capabilities of our adversaries, and even 
of partner countries. Oftentimes, it is hard to source a 
particular attack, if you will, to a given geographic location, 
certainly at the exact time that that attack occurred.
    So, I have just touched the surface of some of the 
complications associated with this, but the cyber threat is 
only going to grow, technology is only going to grow more 
sophisticated within this cyber domain. And essential questions 
related to our strategy and doctrine are unanswered.
    So, our adversaries, as we can see with Russia in the 
latest news, if we can draw conclusions from those news 
reports, are clearly not yet deterred, at least not entirely, 
from conducting some sort of interference in our elections and 
in other areas. So, to me, that speaks both to the need to 
develop cyber capabilities as well as the need for a clear 
strategy and doctrine, signaling to adversaries, and would-be 
adversaries, that State and Defense and other agencies of 
government have an important--will respond in an important and 
meaningful way if we are on the receiving end of any attack.
    So, Mr. Cooper, to get to a question here, do you have any 
thoughts on the cyber threats and the need for improved cyber 
strategy and doctrine in this country?
    Major Cooper. Thank you, Senator. Again, appreciate that 
question.
    I do want to preface, as a current member of the 
intelligence community, as you noted, there are malign actors, 
and Moscow is not alone, Russia is not alone in wanting to 
degrade our capabilities, our status, and our freedoms. That 
said, there are other allies and partners that are also 
targets. Factoring our open fora that we are in here today, 
happy to at least assess and note that, from an interagency 
standpoint, having cyber strategy incorporated in broader 
strategies is not just limited to the Department of Defense or 
the Department of State, it is interagency, it is very well 
inclusive of the intelligence community.
    The biggest challenge that we face today, as I can state in 
this fora, is that we are up against actors that do not play by 
the same rules that we play, so it is a matter of being able to 
at least address the threat in a fashion as we maintain our 
values. But, it would--it is a whole-of-government effort. It 
is not limited to just one particular department and agency. 
State certainly has a lead role, and we are looking at 
strategic interests, because this is not limited to one 
geographic location, it is not limited to one malign actor. 
Like physical threats, there is a transregional nature to this 
threat. And so, it is certainly one that, from a macro 
standpoint, would incorporate all the parties that we have just 
cited.
    Senator Young. Thank you. If confirmed, will you work with 
me on this important issue?
    Major Cooper. Yes, Senator. If confirmed, I look forward to 
working with you on this issue.
    Senator Young. Okay. Thanks so much.
    A couple of quick things I will touch on with my remaining 
time. You and I, in my office, we discussed some--statute 22, 
U.S. Code 2378-1. And this pertains to arms export controls. 
And the statute says, ``No assistance shall be furnished to any 
country under the Arms Export Control Act--to any country when 
the Government of such country prohibits or otherwise 
restricts, directly or indirectly, the transport or delivery of 
United States humanitarian assistance.'' If confirmed, do you 
commit to doing all you can to ensure the Department complies 
with this statute?
    Major Cooper. Yes, Senator. If confirmed, I do. I do want 
to note that it is also incumbent upon us, not only on deep 
protection of human rights, but also ensuring to mitigate 
civilian casualties. That falls well within the wheelhouse of 
provision of humanitarian assistance.
    Senator Young. Okay. I will be submitting to you, for your 
response in writing, an issue that is important to the State of 
Indiana related to the modernization of Humvees and your 
motivation to comply with the provision, sections 1276 of the 
fiscal year '18 NDAA. I fully anticipate that you will be 
supportive of that.
    And lastly, I would just like to give a commendation to the 
Trump administration, and specifically to Vice President Pence, 
for their efforts related to returning the remains, and being 
there to highlight the return of the remains, of our fallen 
servicemen and -women in--from the Korean War. We have 
thousands--thousands that remain unaccounted for, including 
roughly 150 Hoosiers. And I just think that is great, that this 
is a priority.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, congratulations, to each of you, for your 
appointments. You are very, very well qualified for the 
positions.
    Major Cooper, let me ask you about this. I am on the Armed 
Services committee as well as Foreign Relations. And in the 
FY17 NDAA, we received a request from AFRICOM to include a 
provision that would allow DOD to transfer funds to USAID and 
State to deal with countering violent extremism. If the DOD 
viewed, in a particular part of the world--and again, it was an 
AFRICOM request--that the best way to deal with violent 
extremism was not a military activity, but was State or USAID, 
with the signoff of the SECDEF, that transfer can now be made. 
Unfortunately, the administration, through OMB, has been 
discouraging use of that transfer authority, either for reasons 
of proposing reductions of the State Department budget or 
otherwise. But, given that this was a request from the 
Pentagon, and given that this would fall within your purview, 
should you be confirmed, I would love you to commit to working 
with my office to encourage this kind of smart interagency 
action to use transfer authority where it is appropriate. Could 
you give me that commitment?
    Major Cooper. Thank you, Senator.
    I do look forward to working with you, if confirmed, and 
will note, in my current capacity, that kinetic strikes and 
kinetic activity is not the only component for countering 
violent extremism. There is a whole-of-government approach that 
is required. This is something that our command has cited many 
a times in open and closed fora. And it is certain something 
not unique, as far as addressing countering violent extremism. 
There are components that do require other arms of government 
to mitigate and to prevent.
    Senator Kaine. I am very mindful, being a Budget committee 
member, too, that, you know, agencies ask for more money for 
themselves, and so, when a part of government comes to me and 
says, ``We want to make it easier for us to transfer budgetary 
resources to another part of government,'' I sit up and take 
notice, because that is not usually what I hear. And I would 
love to work with you on that. I think that could assist in CVE 
operations on the State side.
    If I could, now, Mr. Richmond, one of the things that I 
really think is interesting about the TIP Report, and that--and 
that is particularly suited for your background, is that the 
U.S. is a hub for human trafficking. In the TIP Report, we are 
trying to be as honest and candid as we can about every nation, 
including ourselves. The TIP Report involves a report about the 
status of human trafficking in the United States. You said that 
your work has dealt with domestic and international, child and 
adult, labor and sex trafficking. Talk a little bit about how, 
should you be confirmed, you might approach the issue of 
domestic trafficking, using the position to assist law 
enforcement agencies, NGOs, and others to reduce domestic 
trafficking in the United States.
    Mr. Richmond. Thank you, Senator.
    I think that one of the unique aspects of the Trafficking 
in Persons Report is that it does include a narrative and a 
ranking for the United States. And the Trafficking in Persons 
Office serves as the leader of the interagency coordinating 
mechanism, the Senior Policy Operating Group, and also with the 
President's Interagency Task Force, bringing all the different 
components of the U.S. Government together to discuss common 
efforts to combat trafficking.
    I think it is helpful to highlight where we can do better. 
And the narrative for the United States highlights areas of 
deficiency, areas that we need to work harder at, while also 
celebrating the great successes that the Federal agents and 
State law enforcement and prosecutors around this country are 
doing every day.
    I think there are--there is room to grow, in terms of how 
we provide victim services, making sure that our policies are 
in alignment. And I look forward to working with my colleagues 
at the Department of Homeland Security, the Department of 
Justice, Health and Human Services, and other agencies to make 
sure that we have a seamless set of policies that make sure 
that we are protecting victims at every turn, and trying to 
combat trafficking domestically.
    Senator Kaine. Thank you. You mentioned the President's 
Interagency Task Force. That task force has not yet convened a 
meeting during this administration. It is chaired by the 
Secretary of State. Should you be confirmed, I hope you will 
prioritize getting that task force to meet. And it certainly is 
my sense--and I would love your opinion on this--that that 
Interagency Task Force is an important part of the effort to 
deal with trafficking, both in the United States and abroad. Do 
you share that view?
    Mr. Richmond. Senator, I do share that view. I think the 
President's Interagency Task Force is essential, and it would 
be a top priority. I would, hopefully, be able to get a task 
force meeting before the end of this year. Obviously, if 
confirmed, I have to find out what the schedule are--and make 
sure everybody can be there. But, it is essential as we try to 
bring everyone together to combat this issue.
    Senator Kaine. Great. Thank you.
    And, again, congratulations to both of you.
    Thanks, Mr. Chair.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both--to both of you, for your willingness to 
serve.
    Mr. Cooper, GAO has reported that, in some cases, we get 
limited cooperation from recipient countries of military 
equipment with respect to end-use monitoring. The Arms Control 
Act requires us to affirm that the end use of the equipment 
that we are provided is as advertised and as requested. So, if 
confirmed, what tools do you envision being utilized in order 
to try to address these situations, where we have difficult 
sight lines on the back end of the transfer? And under what 
conditions would you recommend disapproving of a license 
application because a country is not giving us the end-use 
monitoring processes or sight lines that we might want?
    Major Cooper. Thank you, Senator, for that question.
    Going back to something we discussed earlier this morning 
is that no particular transfer--or no particular program is a 
guarantee. So, from the--the end-use monitoring aspect would 
certainly be part of a consideration for a particular state 
that may have a renewed transfer or a renewed system that may 
be coming in their place. This is not just incumbent upon the 
country team located in that particular state, but there--that 
is a point of leverage that could be applied on a future 
transfer. So, there is no guarantee that they would be in 
receipt of said system or arms.
    Senator Murphy. Thank you for that answer. And, as a 
followup, I wanted to drill down on one particular part of the 
world in which we have very little sights on the end use of the 
arms that we are transferring. And that is Yemen. Human Rights 
Watch has identified 85 different airstrikes that utilize 
American equipment, American munitions, which may be 
categorized as war crimes. And yet, there seems to have been 
little effort, on behalf of this administration or members of 
the coalition, to do any assessment as to whether those are 
truly human rights abuses, as many believe they are. We have 
been told over and over again before this committee that we are 
in a process of trying to get the coalition to use our 
munitions and use our refueling capacity in a smarter manner. 
And yet, at some point, we have to believe what we see rather 
than what we are told. Over this spring, civilian casualties 
were worse than at any other time in the civil war.
    And I just might read to you and to the committee one 
recent readout from an investigative reporter who was on the 
ground in the last month or so inside Yemen. This is from a 
reporter by the name of Jane Ferguson. She was heading to a 
refugee camp, and she said, ``On the way to the refugee camp, 
several bridges had been bombed. Anger towards America is 
growing in rebel-held areas of Yemen. Most people here, whether 
they support the Houthis or not, know that many of the bombs 
being dropped are American. It provides a strong propaganda 
tool for the rebels, who go by the slogan 'Death to America.' 
''
    She quotes one college professor who got his doctorate in 
the United States as saying, ``The missiles that kill us, 
American-made. The planes that kill us, American-made. The 
tanks, American-made. You are saying to me, 'Where is America?' 
American is the whole thing.''
    So, let me ask you about how you foresee serving in your 
role in a manner that would provide us the evidence we need to 
assess whether or not war crimes, violations of human rights, 
are being conducted with U.S. munitions in Yemen. It appears to 
me there has been no significant effort to undertake that 
survey. Many of us would argue that, in fact, we are in 
violation of the Arms Control Export Act because of those--the 
intentional targeting of civilians. But, I would like to know 
that you are going to take this seriously and try to improve 
upon what has been, I think, a miserable effort at oversight 
with respect to this particular series of sales.
    Major Cooper. Thank you, Senator.
    And, if confirmed, absolutely will take this seriously. It 
is not just a matter of defense actions or kinetic actions by 
the coalition supporting the legitimate Yemeni Government. 
There is an intelligence component there, as well, to factor 
in, as far as a--the status of these strikes. So, it certainly 
is something that needs to be looked at from a holistic aspect. 
And State, having that policy lead, has that capacity to take 
rein on that.
    Senator Murphy. But, how do you actually go about coming to 
a conclusion? So, you have, you know, as recently as a week 
ago, another water treatment facility being bombed outside 
Hudaydah. One side says it was bombed intentionally, the other 
side apparently says it was a mistake. But, these disputes 
continue to happen, and there seems to be no effort to resolve 
it. How does your Department go about doing an investigation 
when we do not have a country team on the ground?
    Major Cooper. Correct. So, there is an opportunity for 
State, again, as the lead policy role from an interagency 
standpoint, to coordinate, not just with Defense--there are 
other entities and agencies out there. And again, I cite the 
intelligence community as a resource on information, because 
there are some points of reconciliation, as you noted, because 
there is differing data that has been supplied either by the 
Houthis rebels or those on the ground. And so, yes, there is 
definitely some conflicting information that would benefit from 
a consultative process through the interagency, with State's 
lead.
    Senator Murphy. Oh, you are already a skilled diplomat. 
[Laughter.]
    Senator Murphy. I look forward to working with you on this. 
And I thank you for your attention to it.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations, to both of you, on your nominations. And I 
look forward to working with you, if confirmed, to address the 
very critical responsibilities that you both have in the 
offices that you would be assuming.
    I want to continue on the questions about Yemen, because, 
as I am sure you are aware, Mr. Cooper, this committee passed a 
bipartisan resolution that Senator Young and I sponsored--it 
had very strong support--that would prohibit our military from 
continuing to provide aerial refueling support for the Saudi-
led coalition in Yemen unless the Secretary of State repeatedly 
certifies that the Governments of Saudi Arabia and the UAE are 
taking steps to end the civil war in Yemen, to alleviate the 
humanitarian crisis there, and to reduce the risk to civilians 
posed by military operations. Now, as we know, and based on 
what Senator Murphy had to say, clearly there are major 
challenges that affect all of those areas still occurring in 
Yemen. So, if confirmed, and once this defense bill passes, 
which I expect to be this week, how will you, in your new 
role--how would you approach making sure that those 
certifications had been made by the Secretary of State, and 
that we are working with our allies to ensure that they comply 
with international and humanitarian law?
    Major Cooper. Thank you, Senator. I appreciate that 
question.
    And yes, if confirmed, in my capacity, it is flexing the 
muscle of State's lead role in the interagency. There is--from 
a ground perspective, as you noted, there are some other 
challenges there, besides the civil war, that factor into the 
current kinetic environment there. There are multiple violent 
extremist organizations and al Qaeda affiliates that are trying 
to take advantage of what they would perceive as a permissive 
environment. So, it is a complex environment, to say the least, 
but it does not preclude us from ensuring that humanitarian 
assistance gets through to those who need it the most, and it 
does not preclude us from ensuring that there is a reduction 
and mitigation of civilian casualties.
    Senator Shaheen. Well, I would argue that the language in 
the defense bill actually urges us to ensure that our allies 
are working to reduce casualties and to comply with what is 
international law, and to try and end the conflict there, which 
they have, to date, not been very--working on in a very robust 
way. So, I would urge you to think about it from a positive 
aspect rather than a ``not-precluding'' aspect. It tells us we 
must do that. Do you not agree?
    Major Cooper. I agree, Senator. And it is not from a 
positive aspect, it is a point of leverage, as well. So, issues 
in the region are not mutually exclusive of each other, and 
Emirates and the Kingdom of Saudi Arabia are aware of that. So, 
it does provide us some leverage on multiple points, because 
rules of engagement are--it is requisite that we avoid civilian 
casualty, it is requisite that we get humanitarian assistance 
through.
    Senator Shaheen. Thank you.
    Another provision in that defense bill, again, is 
bipartisan, that would prevent the transfer of F-35 Joint 
Strike Fighter aircraft to Turkey until the program in Turkey 
is reevaluated. And, given the Turkish Government's stated 
intent to purchase the Russian S-400 Air Defense System, and 
the fact that the Government continues to hold American 
citizens against their will, can you talk about how you see 
that language moving forward, and what you would do, in your 
role, to address what is happening in Turkey?
    Major Cooper. Thank you, Senator.
    Safe to say, Turkey is a difficult partner. But, they are a 
partner. They remain a NATO partner. They remain a 
counterterrorism partner, and particularly on combating ISIS 
and the facilitation of ISIS. And, as you noted, a sale of 
something like the S-400, that would be catastrophic for us. 
However, it does not give Ankara a pass, it does not give them 
a pass on incursion on the human rights issues, does not give 
them a pass on imprisoning a fellow American. But, it does make 
it challenging for us to be able to maintain that bilateral 
relationship, because walking away from that would be of great 
impact and would be catastrophic. But, it does not preclude us 
from pressing on Ankara to meet commitments, to meet bilateral 
requirements that are our priority.
    Senator Shaheen. Well, I certainly agree. I think Turkey is 
a very important ally, and we have had a relationship that has 
been important both to Turkey and to the United States and to 
the region. But, can you talk about the technical challenges of 
having a NATO ally like Turkey have in place the S-400 defense 
system at the same time they are using the F-35, or getting the 
F-35? What kind of technical challenges does that pose?
    Major Cooper. Aside from equipment operation, maintenance 
challenges, the technical challenge is that--is the supply 
aspect of it. What we do not want is, we do not want a NATO 
ally to be dependent upon the servicing and supply of a--of 
equipment that is provided by Russia. That is a--from a 
operational standpoint. From a strategic standpoint, we do not 
want a NATO ally to have a weapon system supplied by Russia.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Cooper, today the downloadable gun promoted Defense 
Distributed plan to post online its blueprints for making 
deadly, undetectable, and untraceable plastic weapons using 
three-dimensional, or 3D, printers. If not for the efforts of 
eight attorneys general, including Maura Healey, the attorney 
general from my own State of Massachusetts, anyone, including 
criminals and terrorists, would now be able to download a 
computer file and print a semi-automatic weapon. Thankfully, 
yesterday, a Federal judge granted the attorneys general 
request for a temporary restraining order to stop the online 
publication of blueprints for 3D-printed guns, which was only 
possible because the Trump administration sanctioned it.
    Mr. Cooper, if you are confirmed as the Assistant Secretary 
of State for Political-Military Affairs, you would be in charge 
of the Directorate of Defense Trade Controls, which is at the 
center of this national crisis. In 2013, the Trade Controls 
Directorate concluded that posting these blueprints online and 
making them available worldwide violated Federal export 
controls. But, in a head-spinning reversal, now the office has 
rubber-stamped the Trump administration's plan to allow the 
blueprints online.
    Mr. Cooper, I would like to know whether you recognize the 
consequences of this decision. Last year, ISIS encouraged 
recruits in the United States to exploit American gun laws by 
buying firearms online and at gun shows to avoid a background 
check. Do you agree that ISIS recruits would probably avoid 
buying guns online or at gun shows if they could print them at 
home instead?
    Major Cooper. Senator, thank you for that question.
    I understand the concerns noted by you as well as the 
President. From my personal experience in nonpermissive 
environments, I certainly have been in the space and in the 
place of--on the receiving end of the--of proliferation of 
weapons, especially small arms. So, from a personal experience, 
the proliferation of small arms is of concern.
    Having not been in the Department, privy to the details on 
the legal aspect of the Directorate determination, my 
understanding----
    Senator Markey. I am asking you a different question. The 
question is--let us just say that, because of the Trump 
administration's decision to allow downloadable guns, ISIS 
begins to encourage radicalized recruits to carry out lone-wolf 
attacks with 3D-printed AR-15s. Would that not pose a threat to 
public safety if they could do that?
    Major Cooper. Any tactic, technique, or procedure that 
could be applicable to any ideologue or jihadist extremist is a 
threat. That could be a truck driven down the street. That 
could be any weapon of choice. So, any tactic, technique, or 
procedure could be a threat, as applied in the hands of a lone-
wolf attacker, Senator.
    Senator Markey. Now, what about schoolchildren? In the wake 
of tragedies at Parkland and Sandy Hook, there has been much 
talk about hardening our schools and installing metal detectors 
at building entrances. A plastic gun will not set off any metal 
detector. Would you agree that undetectable guns imperil the 
lives of the children of our country?
    Major Cooper. Any unregulated access to weapons or 
proliferation of weapons is a risk and a challenge to security.
    Senator Markey. Yeah. Well, you are exactly right. And I 
went to sleep last night, hoping that President Trump would 
exercise his power to just stop the implementation of this new 
policy, which Secretary Pompeo and Secretary Sessions signed 
off on. But, they did not. It took a Federal judge in 
Washington State in order to accomplish that goal. It has 
national security and international security implications.
    Now, I appreciate the fact that you are not the person who 
made this terrible policy, but you are asking us to confirm you 
to a position where you will be defending the indefensible. 
Whether ISIS be here or ISIS be overseas, this new era has now 
opened. And, from my perspective, until the President agrees to 
reverse this policy and prohibit the online publication of 
these dangerous blueprints to make plastic guns that can kill 
people here and in--overseas, that are undetectable and are not 
subject to licensing--that this is a decision the President 
should make. You are going to be given the job of implementing 
this existing terrible policy. Until that policy changes, I 
intend on placing a hold on your nomination. I expect the 
President to change that policy and to give you the tools which 
you need to protect against the proliferation of weapons now 
being downloaded across this planet.
    And I appreciate the position which you are in, but you now 
represent a very flawed, indefensible policy, which President 
Trump is allowing to be put on the books.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Just a couple more questions.
    Let me follow up, Mr. Cooper, on the subject matter that 
Senator Markey raised. You are not responsible for the 
decision. And I understand the Senator's view about making a 
statement with the administration and getting them to change 
course, which I share, in terms of getting them to share a 
course. But, I want to know, more for the purposes of your 
nomination, Do you believe that the publication of these 
blueprints for Internet publication, and blueprints for the 
manufacture of 3D-printed plastic firearms, is a significant 
threat to U.S. security interests both at home and abroad?
    Major Cooper. Thank you, Senator.
    Any proliferation of information that would chip away or 
degrade our national security or, actually, our technology--so, 
our technology primacy--is of issue. I understand, in this 
particular case, that, on the computer-aided design, that, as 
far as unique technologies, that was an issue. However, there 
are broader whole-of-government aspects to this that go beyond 
a particular unique intelligence or unique technologies.
    Senator Menendez. Okay. This is--let me just share with 
you--because I am favorably inclined to your nomination, but 
this is where nominees get in trouble.
    I understand your answer, that any proliferation--I get it. 
But, I am asking you specifically--I am not asking you about 
the policy, I am not asking you about the administration's 
decisions--I want to understand how you, if I vote to confirm 
you, sitting in that position, will think and advocate, as I 
asked Mr. Richmond about things, if he is sitting there and 
there are other considerations, how he will think and advocate. 
That is the only way in which I can judge a nominee, at the end 
of the day. Because once I vote for you and you are confirmed, 
then we are off to the races.
    So, let me try to--once again, with that preface, do you--
if the injunction that presently exists is lifted--there is an 
injunction by a Federal judge. Let us say that injunction is 
lifted. You are confirmed, and you are sitting at the--in the 
PM Bureau. Would you advocate to suspend the regulations to 
allow 3D gun production information to be distributed worldwide 
to terrorists, extremists, and criminals?
    Major Cooper. Senator, thank you.
    If I am--if confirmed, it will be incumbent upon me, and I 
would push to ensure nonproliferation. It is not just large 
weapon systems. It is small weapon systems. As I said, I have 
been a personal recipient on the opposite end of such a weapon, 
so I would be a strong advocate to ensure nonproliferation. So, 
that is inclusive of small weapons.
    Senator Menendez. Okay. And would you specifically--and I 
appreciate your service and the harm that you put yourself in, 
in defense of the Nation--would you specifically, also, as part 
of that proliferation, say that the Internet protocols that 
creates 3D gun production is among that proliferation?
    Major Cooper. There are--Senator, it is not exclusive to a 
particular platform. To be fair, to answer your question, it 
would be----
    Senator Menendez. I said----
    Major Cooper:--not limited to Internet----
    Senator Menendez.--``would it''----
    Major Cooper:--Internet downloading.
    Senator Menendez.--``would it include?'' I did not say, 
``Was it exclusive of?''
    Major Cooper. It could be inclusive of, sir, Senator, yes.
    Senator Menendez. Thank you very much. I am trying to help 
you.
    Let me ask--go back to Mr. Richmond. I think that your 
depth of knowledge is incredibly great. It is one of the better 
nominees that we have had this--actually, this--both set--that 
we have had before the committee. But, I want to focus on two 
things. Prosecution is incredibly important. But, I want to get 
your commitment to this committee that prevention and 
protection of victims is also going to be an equal emphasis if 
you are confirmed.
    Mr. Richmond. Thank you, Senator.
    The paradigm that has been used by the United States and 
has been embraced around the world is for a three-P paradigm: 
prevention, protection, and prosecution. And, instead of them 
being three silos, I think they are really three legs of the 
same stool. They are all necessary, and they interconnected. 
When we prosecute perpetrators, it is essential that survivors 
get services. In order to reduce vulnerabilities, we reduce the 
number of individuals who might be likely to be trafficked. All 
these things fit together and are essential.
    The criticism of an over-emphasis of prosecution, I do not 
think is borne out by the numbers. There is a chronically low 
number of prosecutions, especially in labor trafficking cases. 
And I think we need to increase those prosecutions, but we need 
to do it in a way that also highlights the fact that we have to 
have robust, tailored, and holistic survivor services that can 
care for people who have experienced trauma, as well as 
education and awareness efforts. There has been a comment that, 
``Awareness campaigns do not rescue anyone,'' but the reality 
is, no one is helped or rescued without awareness first coming. 
And so, I would be committed----
    Senator Menendez. All right.
    Mr. Richmond.--if confirmed, to a----
    Senator Menendez. I----
    Mr. Richmond.--holistic approach.
    Senator Menendez. I--okay. I appreciate that, because I am 
not a critic of prosecution. On the contrary, I embrace it. 
But, I also understand there is three legs to the stool, and we 
need to equally apply the other two.
    Finally, Central America. Just let me hear, briefly, what 
your view is about the Central America crisis. Because I want 
to know the narrative that you will bring to this job, as it 
relates to those who are fleeing from Central America and who 
are--enormously can be exploited in trafficking, and many are.
    Mr. Richmond. Thank you, Senator.
    I have worked many cases with victims from Central America, 
and have--it has been a keen area of interest of mine for some 
time. I think that robust engagement with Central America, 
particularly the Northern Triangle--although I think it is to 
everyone's detriment not to include Belize in that discussion, 
given its porous border with Guatemala and close connection to 
Honduras--I think each of these countries are essential. And to 
have--both through our bilateral engagements regarding the 
Trafficking in Persons Report, and the narrative, as well as 
international programming efforts to bolster government's 
ability to answer that question I mentioned earlier, to 
actually deliver on the protections of law to the individuals, 
are essential. And building up civil society's response in 
order to care for survivors.
    Senator Menendez. I just hope that you will keep--if you 
are confirmed, that you will keep the narrative honest. Because 
many people fleeing Central America, their choice is to stay 
and die or flee and have a chance at living. And those who get 
trafficked along the way, they need to be protected just as 
much as anybody else.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to follow up on Senator Menendez's first questions. 
He asked both of you, one, in regards to not compromising the 
integrity of the Trafficking in Persons Report, the other 
dealing with the human rights in regards to arms transactions. 
And I appreciate both of your responses. And they are the 
responses I hoped to received.
    But, Mr. Richmond, let me start with you first. In the 
previous administration, we were hampered in getting the 
unfettered recommendations that were made through the chain 
because the decision was contrary to those recommendations made 
at a higher level. You do not make the final decisions on the 
rankings. We know that. And, at times, what you recommend may 
not be what the final recommendation is. And then you come 
before us and say, well, you cannot talk about the internal 
discussions that take place within the executive branch. And we 
respect that, also. But, we need a commitment from you that you 
will give your views on this directly to this committee so that 
we can oversight how the trafficking decisions are being made. 
So, do you commit that, upon the questioning to us, that we 
will be able to get the direct information that you have in 
regards to the rankings so that we can provide the proper 
oversight to how the law is being implemented?
    Mr. Richmond. Senator, I am grateful for you raising this 
issue.
    The fact that this committee has such a vigorous oversight 
into the TIP Report actually advances our ability to argue for 
accurate rankings. And I commit to you, if confirmed, to be a 
vigorous advocate within the Department of State for the 
position of the TIP Office, to make sure that these are fact-
based rankings and narratives.
    I am also interested in a continued dialogue with this 
committee. I know that interim briefings have occurred 
throughout the year regarding countries' progress that have 
been of interest to this committee. I am interested in 
continuing that practice to make sure that there is a free flow 
of information. And I look forward to appearing before this 
committee, if confirmed, once again to discuss the rankings and 
to make sure that you all are comfortable with and understand 
how the decisions were made.
    Senator Cardin. Well, that is not exactly what I want to 
hear. I understand what you are saying. And certainly, we will 
protect your confidentiality in the internal process within the 
executive branch. But, we need to get source information to do 
our oversight, and we depend upon the person who is responsible 
for that, which is you, in regards to the recommendations made 
by the mission in country, in regards to how the deputy--the 
regional secretaries, et cetera, have come through this. We 
need to be able to get the source information to evaluate how 
the law is operating. And, quite frankly, it was difficult, 
under the Obama administration, to get that. It was, in regards 
to the cases that we are talking about. We think we got it. 
Just took us a little bit longer to get the information than we 
would have preferred. And we have looked at some statutes.
    We respect the separation of branches, but we have a 
responsibility, and it is--in your--in this hearing, it is 
important that we know that we are going to be able to get the 
information we need to carry out our oversight function.
    Mr. Richmond. Senator, I look forward to making sure that I 
provide all the information that you need to carry out that 
oversight function.
    Senator Cardin. Mr. Cooper, the same thing is true on arms 
issues. I cannot tell you how many times I have had 
conversations with the executive branch, where I asked them to 
raise human rights issues, because of what you just said--it is 
factor in making these decisions--and it seems to get lost. We 
are--we ask for modest advancements, and sometimes we cannot 
even get modest advancements on these issues. So, I ask you the 
same question. I understand that the internal decisions are 
made, and how they are made. But, we need to have a clear 
conversation as to carrying out what you just said--one of the 
major factors is to advance American values, which are human 
rights issues and spelled out in several of our statutes that 
we have--that we will get that honest dialogue and input so 
that we can use every leverage we can to advance human rights.
    Major Cooper. Thank you, Senator.
    And, as you note, it is well beyond statue. It is a moral 
imperative. No sale is a guarantee, no transfer is a guarantee, 
and no particular training package or security assistance is a 
guarantee. Our country has suspended or taken away training 
programs or sales or transfers, and that is certainly a point 
of leverage for us. And that factor will be just that, it will 
be a point of leverage.
    Senator Cardin. But, there is times that you need 
congressional understanding in order to perceive. And that is 
based, at times, upon getting understandings about human rights 
advancements, which do not always happen. So, we need a clearer 
communication so that the leverage of the congressional role 
assists you in accomplishing the human rights advancements.
    Major Cooper. And thank you very much, Senator.
    If confirmed, I look forward to having that back-and-forth 
discourse and also being able to support each other and bolster 
each other as we represent the U.S. together abroad.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just a couple of quick questions.
    Major Cooper, if confirmed, will you commit to preserve and 
protect the established informal notification process to the 
Chairman and Ranking Member of the committee for all U.S. arms 
sales that require formal congressional notification under the 
law?
    Major Cooper. Mr. Chairman, thank you for raising that.
    As just shared with Senator Cardin, I look forward to 
having an ongoing dialogue with you and with the committee and 
the committee staff. I am quite used to spending time on 
Capitol Hill. I consider it very much a part of this position, 
if confirmed, to spend a good amount of time with you and your 
colleagues and the staff on these issues before the Department.
    The Chairman. But, it is a yes-or-no question.
    Major Cooper. I do look forward to maintaining that 
informal dialogue, as well as the formal. So, that is all 
inclusive, Senator.
    The Chairman. Thank you.
    Do you believe the Department of State is ideally organized 
to manage its security assistant--assistance programs, as well 
as oversee the Department of Defense's security cooperation and 
security assistance efforts?
    Major Cooper. Mr. Chairman, the Senate--the Department is 
the lead because it has that hub-and-spoke capability, as far 
as the interagency. So, yes, it is the lead for the Government. 
That said, I look forward to getting the Bureau, at the bureau 
level, staffed and resourced up to the appropriations level 
that were authorized for the Bureau.
    The Chairman. Well, with no further questions, I do want to 
say I am very uplifted by the quality, the background, the 
experience that both of you have had. And I think you are 
outstanding nominees, and I look forward to doing everything I 
can to help you be confirmed in a speedy way.
    I want to thank you for your commitment to our country and 
your willingness to serve in this regard.
    And we are going to leave the record open until the close 
of business tomorrow. My sense is, you will want to answer 
those questions fairly quickly, if any come in.
    Seeing no further questions, the committee is adjourned.
    Thank you.


    [Whereupon, at 11:18 a.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
           Major R. Clarke Cooper by Senator Robert Menendez

    Question 1. If confirmed, how will you ensure that the bureau of 
Democracy, Human Rights and Labor (DRL) will have a seat at the table 
when discussing human rights issues surrounding arms sales or security 
assistance?

    Answer. If confirmed, I will ensure human rights will be a key part 
of reviews for potential government-to-government Foreign Military 
Sales and for State Department-licensed Direct Commercial Sales. I 
understand the Bureau of Democracy, Human Rights, and Labor (DRL) 
currently plays a roll adjudicating certain arms transfers as well. As 
applied when I built surrogates forces, Leahy vetting will remain a 
fundamental part of the screening process for security assistance. If 
confirmed, I will welcome DRL's continued input into arms transfer 
deliberations.

    Question 2. How would you use arms sales and security assistance as 
leverage to push states to make measurable improvements in their human 
rights records?

    Answer. If confirmed, I will ensure our foreign partners understand 
our expectation that U.S. origin defense articles and services not be 
misused or misapplied. If these expectations are not met, there is a 
full range of diplomatic options through political-military and 
military-to-military channels. If it is assessed U.S. equipment was and 
will likely continue to be misused, security assistance support may 
cease.
    I understand, for the first time in a U.S. Conventional Arms 
Transfer Policy, the President's updated policy directs the U.S. 
Government to aid partners in reducing the risk of harm to civilians 
during military operations. If confirmed, I will ensure the U.S. 
Government is actively working with partners to develop the 
capabilities and doctrine required to reduce the risk of civilian 
casualties and human rights and mitigate violations of international 
humanitarian law.

    Question 3. What tools would you use to ensure that proper end-use 
monitoring is followed by recipient countries? What punishments would 
you dole out if countries were found to be in violation of end-use 
monitoring?

    Answer. If confirmed, I intend to ensure robust implementation the 
Golden Sentry and the Blue Lantern End Use Monitoring programs. These 
two programs are used to verify that defense articles or services 
transferred by the U.S. Government to foreign recipients via Foreign 
Military Sales or Direct Commercial Sales, respectively, are being used 
in accordance with the terms and conditions of the transfer agreements 
or approval. If these terms and conditions are not met there is a full 
range of diplomatic options through political-military and military-to-
military channels for the Department to action. In extreme cases, and 
if confirmed, I will advocate to limit or suspend transfers if assessed 
U.S. equipment was and will continue to be misused or transferred to 
other entities without U.S. approval.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career, at home and abroad, I have remained 
an advocate for freedom and human rights. Domestically, during my term 
as Executive Director of Log Cabin Republicans, I persistently 
advocated for equal rights and promoted legislation to provide basic 
fairness for all Americans. I am especially proud of successfully 
securing the necessary Republican votes in the House and Senate to 
repeal the ``Don't Ask, Don't Tell'' (DADT) statute which excluded gays 
from military service.
    Overseas, all of my civilian and military tours in Africa and the 
Middle East included capacity building with host nation governments and 
partner nations' security forces. Each of these positons afforded me 
the opportunity to actively promote freedom, democracy, and human 
rights. Through the use of educational tools, coordination with civil 
society partners like U.S. Institute for Peace, and applying the 
leverage of access to security assistance, I have consistently sought 
to ensure our commitments to foreign partners comports with our 
American values.
    Further, when serving as an Alternate Representative on the United 
Nations Security Council and as Delegate on the U.N. Fifth committee 
(Budget), I advocated for transparency, accountability, and reform of 
the U.N.. In these capacities, I worked with colleagues from other U.N. 
member states to establish a multilateral review of U.N. mandates where 
we collectively assessed the status of individual mandates, sought to 
ensure compliance with the Universal Declaration of Human Rights, and 
addressed determinations for completion or renewal of mandates.
3-D Printed Guns
    Question 5. The State Department last week allowed the Internet 
publication of blueprints for the manufacture of 3-D printed plastic 
firearms. I am deeply concerned about how these firearms present a 
terrorist threat, as any individual who acquired access to a 3-d 
printer would be able to create undetectable plastic weapons that could 
be smuggled into vulnerable areas, such as aircraft.

   Do you think that undetectable or nearly-undetectable weapons, such 
        as 3D-printed firearms, will present a further challenge to 
        U.S. security services, such as the Transportation Security 
        Administration and the Secret Service, which must protect the 
        American public and government officials, including the 
        President?

    Answer. As a member of the intelligence community, and at an open 
source level, it is fair to assess 3D printing technology carries new 
possibilities but also comes with notable risk for abuse by criminals 
and terrorists. The same machines which allow astronauts on the 
international space station to print their own tools might also help a 
state like North Korea print military or industrial equipment to get 
around imposed sanctions. While most public attention around the widely 
available technology for 3D printed weapons is focused on homemade 
guns, there are far more dangerous, operable, and readily available 
weapons and implements one can currently acquire with immediacy on the 
internet, and are more likely to be used in acts of crime and terror.
    Still, there are reasons to be cautious about emerging 3D and 
computer aided design (CAD) technology with potential local and 
international security implications. I have not, however, been privy to 
internal State Department or Commerce Department interagency analysis 
or discussions about the particular proposed rule change. If confirmed, 
I will closely study this issue in consultation with my Department, 
interagency, intelligence community colleagues, and Congress to 
collectively address the overarching security threats associated with 
weapons proliferation and economic or industrial insecurity.
    As to specific law enforcement measures for the detection and 
disruption of terrorists' tactics, techniques, and procedures, I would 
defer to domestic law enforcement and security services, such as the 
Transportation Security Administration and the Secret Service, on this 
question.

    Question 6. What steps would you take to ensure that these weapons 
are not used to harm Americans?

    Answer. If confirmed, I will ensure the President's Conventional 
Arms Transfer Policy continues to be implemented in a manner that 
ensures U.S. national security and foreign policy interests are 
achieved. I will also ensure U.S. export control law will vigorously be 
enforced. I would defer to domestic law enforcement agencies to address 
questions of domestic law enforcement and security.

    Question 7. What steps would you take to ensure that these weapons 
do not find their way into the hands of terrorists and other malign 
actors?

    Answer. If confirmed, I will ensure the President's Conventional 
Arms Transfer Policy continues to be implemented in a manner ensures 
U.S. national security and foreign policy interests are achieved. I 
will also ensure that U.S. export control law will vigorously be 
enforced. I would defer to domestic law enforcement agencies to address 
questions of domestic law enforcement and security.

    Question 8. State/PM used the authority under ITAR 126.2 to 
temporarily suspend the application of the ITAR regulations regarding 
the 3D gun technical information that was at the heart of the lawsuit 
by Defense Distributed against the Department of State. How long is 
``temporary'' under ITAR 126.2? Is there a minimum period of time, or 
is it completely at the discretion of the PM DAS?

    Answer. I understand this particular temporary suspension is 
related to the ongoing litigation. I have not, however, been privy to 
internal State Department or Commerce Department interagency analysis 
or discussions about the determination of the temporary suspension of 
ITAR regulations. If confirmed, I will closely study this issue and the 
current scope of the ITAR regulations in consultation with my 
Department, interagency, and intelligence community colleagues.

    Question 9. During a briefing of my staff on State's decision to 
agree to the settlement to the Defense Distributed lawsuit, State 
representatives stated that an adverse decision in the case would have 
set a precedent that would have placed other items and technology on 
the U.S. Munitions List at risk of similar lawsuits and disclosure. 
Please provide an illustrative list of the defense items and related 
controlled technology State was concerned would be subject to 
potentially future lawsuits requiring removal of controls for public 
sharing had there been an unfavorable ruling in the DD case. In 
addition, please send details on the cases State representatives 
mentioned during that staff briefing that are indicative of federal 
courts likely to find against the Government in this regard.

    Answer. My understanding is the Department of State, as part of 
Export Control Reform, made a number of revisions to the U.S. Munitions 
List (USML) to ensure it controls technologies that maintain our 
critical military and intelligence advantage. Ongoing reform efforts 
are intended to produce an updated USML that continues to control and 
protect our technologies of greatest concern. I have not been privy to 
internal discussions about the Defense Distributed case, but, if 
confirmed, I would study this matter closely with colleagues from the 
Department of Justice and other interagency parties.

    Question 10. What do you perceive as the most important issues 
regarding security assistance? Are there specific security issues or 
countries that you hope to tackle immediately, if confirmed?

    Answer. Security assistance is a powerful foreign policy tool the 
United States can use to strengthen alliances and partnerships around 
the world and mitigate threats requiring a collective response -on 
terrorism, organized crime, restraints on the freedom of navigation, 
and much more. It is an instrument that inherently connects every 
aspect of foreign policy--whether because of the sensitivity of the 
partner, regional arms balance, the type of assistance, or the 
program's overall effect on bilateral and regional goals and 
relationships.
    The Department of State is responsible for ensuring all security 
sector assistance aligns with and promotes U.S. objectives in light of 
the broader diplomatic and defense relationship and that everything the 
various entities of the U.S. Government are doing in foreign security 
sectors advances a coherent strategy. If confirmed, I will work closely 
with DoD to ensure the Department of State continues to successfully 
fulfill this role.
    Given DoD's authorities in this area, it is imperative State and 
DoD work collaboratively to synchronize security sector assistance 
planning and programming across the two departments, and they are 
optimizing their respective resources and authorities to advance U.S. 
national security priorities and partnerships. If confirmed, I will 
devote personal attention to building collaborative relationships 
between State and DoD towards this end.
Small Arms/Light Weapons Transfer to Commerce Control List
    Question 11. The United States is in the final stages or switching 
a number of small arms and light weapons from the State Department's 
U.S. Munitions List (USML) to the Department of Commerce's Control List 
(CCL). Such a change drastically diminishes Congress's ability to 
oversee the sale of these types of weapons to countries overseas.

   Do you believe it is smart for U.S. security interests to make such 
        a change?

    Answer. My understanding of firearms being transferred to the 
Commerce Control List will continue to come to the Department of State 
for foreign policy review in the course of State and Commerce's 
licensing process and that national security will continue to be one of 
the licensing evaluation criteria. My understanding is also Export 
Control reform has been underway for many years and these are the final 
categories of exports to be reviewed. If confirmed, I will work with 
our Congressional oversight committees and others in the Department, as 
appropriate, to ensure the law and the President's Conventional Arms 
Transfer Policy continue to be implemented in a manner consistent with 
U.S. national security and foreign policy interests.

    Question 12. How will you ensure proper vetting of these sales in 
order to make certain that security assistance is provided properly, 
and that these weapons are not used for malign purposes?

    Answer. My understanding of firearms being transferred to Commerce 
control will continue to come to the Department for foreign policy 
review in the course of their licensing process. My understanding is 
also Export Control reform has been underway for many years and these 
are the final categories of exports to be reviewed. If confirmed, I 
will work with Congressional oversight committees and others in the 
Department, as appropriate, to ensure the law and the President's 
Conventional Arms Transfer Policy continue to be implemented in a 
manner consistent with U.S. national security and foreign policy 
interests.

    Question 13. State has made some unwise choices in the past on such 
proposed sales, such as a proposed sale of semi-automatic pistols to 
President Erdogan's personal bodyguards and thugs. Would you clear on 
future sales to authoritarian leaders such as Erdogan, Duterte of the 
Philippines, and others?

    Answer. If confirmed, I will work with my Department colleagues to 
ensure the President's Conventional Arms Transfer Policy continues to 
be implemented in a manner safeguarding U.S. national security and 
foreign policy interests, including the review of government-to-
government Foreign Military Sales and State Department-licensed direct 
commercial sales, for human rights concerns. If confirmed, I will 
ensure the historical human rights record of a potential recipient is 
taken into full account when considering proposed arms transfers.

    Question 14. Among other items, State seeks to transfer export 
controls of sniper rifles to the Department of Commerce. Why does State 
believe that making sniper rifles easier to export to foreign 
countries--including, presumably, for commercial sale--do not 
constitute a threat to U.S. citizens, soldiers, and foreign civilians 
and soldiers of U.S. friends and allies?

    Answer. My understanding is these items would still be subject to 
stringent controls implemented by the Department of Commerce. Certain 
sales will continue to be referred to the Department for a national 
security review. If confirmed, I will work with my Commerce and 
Department colleagues to ensure that the U.S. maintains comprehensive 
controls on exports of these firearms.

    Question 15. State has told staff that there is nothing distinctive 
about a rifle that identifies it as a ``sniper'' rifle. Yet, as 
recently as August 2016, State proposed a sale of ``sniper rifles'' to 
Afghanistan. Can you reconcile these two contradictory statements?

    Answer. While I was not involved with the proposed sale that you 
reference here, my understanding is there is no U.S. Munitions List 
item specifically annotated in the International Traffic in Arms 
Regulations as a ``sniper rifle.'' Generally, firearms that meet this 
description/definition would be a highly accurate rifle, with a 
telescopic sight, and typically would be controlled by the general 
language of U.S. Munitions List Category I(a). Further, my 
understanding is at times manufacturers may refer to certain firearms 
in their product line with this language. As such, when effecting 
Congressional notification, this language may be applicable.

    Question 16. Transferring such weapons to the Commerce Control List 
removes them from the AECA's requirement to notify the Congress via 
SFRC and HFAC, as well as being subject to the informal review process 
with the two committees. If the export control of such weapons is 
transferred to Commerce, I understand that State/PM will still be asked 
to clear on proposed exports. Will you continue the informal committee 
review process with the committees on proposed sales of $1 million or 
more?

    Answer. My understanding of firearms being transferred to the 
Commerce Control List will continue to come to the Department of State 
for foreign policy review in the course of their licensing process and 
national security considerations will continue to be one of the 
licensing evaluation criteria. If confirmed, I will work with 
Congressional oversight committees and others in the Department, as 
appropriate, to ensure the law and the President's Conventional Arms 
Transfer Policy continue to be implemented in a manner promoting U.S. 
national security and foreign policy interests. If confirmed, I look 
forward to further studying this issue and consulting with Department 
of Commerce colleagues, other interagency colleagues, and Congressional 
committees.

    Question 17. Will you maintain the informal arms sales notification 
and consulting process with the SFRC as it currently exists, without 
changes? If you seek to change the process, will you only proceed with 
the expressed consent of the Chairman and Ranking Members of the SFRC 
and HFAC?

    Answer. If confirmed, I support continuing the existing informal 
process for securing Congressional clearance of arms sales. In the 
event that I identify systemic changes that would improve the standard 
process, if confirmed, I am committed to working with both Chairmen and 
Ranking Members of the SFRC and HFAC on obtaining your consent, prior 
to implementing such changes.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Major R. Clarke Cooper by Senator Benjamin L. Cardin

Small Arms AECA Oversight
    Question 1. On May 24, 2018, the Departments of State and Commerce 
submitted proposed rules to amend the U.S. Munitions List to transfer 
oversight for the export of certain firearms, ammunition, and related 
items from State to Commerce.

   What is your assessment of these proposed rules and how would they 
        advance U.S. national security and foreign policy interests?

    Answer. My understanding of firearms being transferred to the 
Commerce Control List as part of these proposed rules will continue to 
come to the Department for foreign policy review in the course of their 
licensing process, and national security will continue to be one of the 
licensing evaluation criteria. If confirmed, I will work with the 
Bureau of International Security and Nonproliferation and others in the 
Department, as appropriate, to ensure the law and the President's 
Conventional Arms Transfer Policy continue to be implemented in a 
manner that ensures U.S. national security and foreign policy interests 
are achieved.

    Question 2. Do you believe the administration's decision move small 
arms from the U.S. Munitions List to the Commerce Control List, and the 
reduced vetting associated, is in the national security interest of the 
United States?

    Answer. My understanding is that firearms being transferred to the 
Commerce Control List will continue to come to the Department for 
foreign policy review in the course of their licensing process. I 
understand consistent with that review, all arms transfers are subject 
to case-by-case comprehensive consideration of U.S. interests--
including the risk that the transfer may contribute to human rights 
abuses, including acts of gender-based violence, violence against 
vulnerable populations, violations of international humanitarian law, 
terrorism, mass atrocities, or transnational organized crime. If 
confirmed, I will work with the Bureau of International Security and 
Nonproliferation and others in the Department, as appropriate, to 
ensure the law and the President's Conventional Arms Transfer Policy 
continue to be implemented in a manner that ensures U.S. national 
security and foreign policy interests are achieved.
3D Printing Decision:
    Question 3. Last week, the Justice Department and State Department 
abruptly settled a 3-year-long legal battle to prevent a man from 
publishing digital blueprints for 3-D printed firearms, including AR-15 
semiautomatic rifles. The administration's inexplicable decision-coming 
after years of winning in the courts-paves the way for this man to 
publish his files online today--Wednesday, August 1. This development 
has tremendous implications for Americans' safety, ushering in a wave 
of downloadable plastic firearms that could potentially to evade 
detection by metal detectors, and give access to people otherwise 
prohibited from accessing firearms:

   To your knowledge, what analysis, if any, did the State and 
        Commerce Departments undertake to evaluate the potential risks 
        of the proposed rules changes on export controls on the online 
        publication of blueprints for 3-D printed firearms?

    Answer. As a member of the intelligence community, and at an open 
source level, it is fair to assess that 3D printing technology carries 
new possibilities but also comes with notable risk for abuse by 
criminals and terrorists. There are reasons to be cautious about 
emerging 3D and computer aided design (CAD) technology with potential 
local and international security implications. The same machines which 
allow astronauts on the international space station to print their own 
tools might also help a state like North Korea print military or 
industrial equipment to get around imposed sanctions. While most public 
attention around the widely available technology for printed weapons is 
focused on homemade guns, there are far more dangerous, operable, and 
readily available weapons and implements one can currently acquire with 
immediacy on the internet, and are more likely to be used in acts of 
crime and terror.
    I have not, however, been privy to internal State Department or 
Commerce Department interagency analysis or discussions about the 
particular litigation. If confirmed, I will closely study this issue in 
consultation with my Department, interagency, and intelligence 
community colleagues, along with Congress to collectively address the 
overarching security threats associated with weapons proliferation and 
economic insecurity.

    Question 4. Are you at all concerned about the potentially 
dangerous consequences of this rules change?

    Answer. If confirmed, I will work with my Department and 
interagency colleagues to ensure the President's Conventional Arms 
Transfer Policy continues to be implemented in a manner which promotes 
U.S. national security and foreign policy interests. I will also ensure 
U.S. Export Control laws are vigorously enforced. I would defer to 
domestic law enforcement agencies to address questions of domestic law 
enforcement and security posture.
Export of Unmanned Aerial Systems
    Question 5. President Trump's new policy on the export of unmanned 
aerial systems (UAS) includes five primary objectives, one of which is 
to ``remove barriers to the global UAS market and avoid ceding export 
opportunities to competitors where such self-imposed restrictions are 
unwarranted.''

   Are you aware of which restrictions have been rescinded?

    Answer. I understand the administration's updated UAS Export Policy 
permits some sales of advanced UAS, such as armed or MTCR Category I to 
occur via Direct Commercial Sales. I am also aware the new policy 
removes the special scrutiny of ``strike-enabling'' technologies, now 
distinguishing only between ``armed'' and ``unarmed'' systems.

    Question 6. If so, please note those restrictions and explain how 
you would, if confirmed, apply this new policy to ensure that recipient 
countries of UAS do not employ these systems in manners inconsistent 
with U.S. law or national security and foreign policy interests.

    Answer. If confirmed, I will ensure sales, transfers, and 
subsequent use of all U.S.-origin UAS are responsible and consistent 
with U.S. national security and foreign policy interests, as well as 
with U.S. values and international standards. The updated policy 
provides a number of helpful tools to accomplish these objectives. For 
instance, recipient nations of U.S.-origin UAS must agree not to use 
the system for purposes other than those for which it was furnished. 
Prior to a potential transfer, recipient countries must agree to 
maintain the security of military UAS. Transfers of U.S.-origin armed 
and MTCR Category I systems also require periodic consultations with 
the U.S. Government. Finally, the United States will require recipients 
of U.S.-origin military UAS to agree to the following guiding 
principles of proper use before authorizing such transfers:

  <diamond> Recipients are to use these systems in accordance with 
        international law, including international humanitarian law and 
        international human rights law, as applicable.
  <diamond> Armed UAS are to be used in operations involving the use of 
        force only when there is a lawful basis for use of force under 
        international law, such as national self-defense.
  <diamond> Recipients are not to use UAS to conduct unlawful 
        surveillance or use unlawful force against their domestic 
        populations.
  <diamond> As appropriate, recipients shall provide UAS operators 
        technical and doctrinal training on the use of these systems to 
        reduce the risk of unintended injury or damage.

    If these expectations are not met, there is a full range of 
diplomatic options through political military and military-to-military 
channels for the Department to action. In extreme cases, I will 
advocate to cease support if there is an assessed misuse of U.S. 
equipment.
Counterterrorism Policy/Niger Ambush
    Question 7. The October 2017 ambush that killed four American 
soldiers in Niger revealed major gaps in U.S. counterterrorism 
strategy, particularly with our growing presence in the Sahel region to 
counter Boko Haram and ISIS affiliates.

   If confirmed, how will you work with DoD and U.S. national security 
        agencies to implement a coherent, transparent counterterrorism 
        strategy that does not put U.S. lives in danger?

    Answer. The tragic loss of four Special Operations colleagues in 
October 2017 did not reveal gaps in strategy, but did highlight 
operational level failures from inadequate training, sub-standard 
planning, and poor command oversight.
    Each nation in the Trans-Sahel region struggles with deep local 
challenges that affect their security environments. The Governments in 
the Trans-Sahel struggle to manage their own domestic issues, including 
endemic corruption, inter-ethnic divisions, heavy-handed security 
responses, and anemic regional development and political 
reconciliation. This provides a permissive environment for terrorists 
and criminals to operate, traffic illicit goods, and conduct attacks. A 
one-size-fits-all model for the entire region will not likely succeed 
to in either bolstering partner nation forces or increasing 
governmental capacity. Nation specific considerations in Chief of 
Mission level country strategic plans are concert with transregional 
considerations. Specific to the Sahel nations, the Security Governance 
Initiative (SGI) and the Trans-Sahara Counterterrorism Partnership 
(TSCTP) focus on executive-level security sector engagements and 
building institutions and core capabilities in the areas of logistics, 
training, maintenance, and intelligence to better ensure 
sustainability. Most importantly, any whole-of-government strategy must 
contain significant stabilization, education, public messaging, and 
livelihoods development policy and programming components so as to 
address the drivers of terrorism at the community levels.
    If confirmed, I will coordinate with interagency and intelligence 
community partners to apply diplomatic, intelligence, military, 
development, and law enforcement tools toward a comprehensive 
counterterrorism strategy in order to address the social, political, 
and economic roots of terrorism as well as apply persistent kinetic 
pressure to allow space for sovereign partner security forces to 
operate. Further, it will be incumbent upon me and the Department of 
State Political Advisors posted in the various U.S. military commands, 
to ensure the Department of Defense requires all U.S. service members 
to understand Chief of Mission authorities as well as the intent and 
guiding principles of the strategic approach of employing U.S. military 
capabilities in a supporting role when working with allies and 
partners.

    Question 8. How has your experience at JSOC contributed to your 
perspective on U.S. counterterrorism strategy?

    Answer. Over the course of my career within the intelligence 
community, and particularly my time with JSOC, I can attest that 
application of kinetic engagements and bombardments targeting high-
value individuals and infrastructure can shrink terrorists' safe 
havens, create temporary leadership gaps in terrorist groups, affect 
the ease at which terrorists operate, and provide space for sovereign 
partner forces, but sole kinetic engagement fails to address the 
terrorism problem holistically. Military kinetic solutions have minimal 
impact on inspired external operations attacks; terrorists' narrative 
and propaganda; and the ability for terrorists to radicalize, recruit, 
and retain members within their ranks.
    Still, whilst the national security rebalance of resources to 
address state adversaries is sensible, the threat of terrorism remains 
substantial at home and abroad. The threat of terrorism is chronic, and 
military defeats of extremists do not equate an end to terrorism. 
Neither ISIS nor al-Qaeda are dead, and terrorist groups will continue 
to come and go with differing levels of persistence. For as long as 
someone believes their troubles derive from the United States, our 
nation will remain a focus of terrorist threats. The roots of terrorism 
are social, political, and economic grievances. To counter terrorism 
and counter extremism requires an interagency application of 
diplomatic, intelligence, military, development, and law enforcement 
tools.

    Question 9. What should the administration do to ensure that 
another Niger ambush does not happen?

    Answer. Niger is a willing and increasingly capable 
counterterrorism (CT) partner. It faces transregional terrorism threats 
along its borders with Nigeria, Mali, and Libya. Our current CT 
strategy focuses on enabling partners, and using relatively small 
numbers of U.S. personnel to build Nigerien military and civilian 
security capacity. This approach reduces risk to U.S. personnel and 
places the primary responsibility for CT activities on the Nigeriens. 
The Security Governance Initiative (SGI) and the Trans-Sahara 
Counterterrorism Partnership (TSCTP) are examples of the Department's 
focus on long term capacity building. Whilst the ambush in Niger was a 
tactical surprise, the likes of which can never fully be prevented, you 
have my commitment to work towards a whole-of-government approach to 
address the drivers of terrorism at the community levels.
    On what specific risk mitigation and readiness steps the 
administration took for military commanders to manage risk to deployed 
U.S. personnel in the aftermath of the tragic October 2017 ambush in 
Niger, I refer you to the Department of Defense.
End Use Monitoring and Evaluation
    Question 10. GAO reporting indicates that in some cases, limited 
cooperation from the recipient countries of military equipment sold 
through direct commercial sales has hindered State Department efforts 
to conduct end-use monitoring of such equipment, as required by the 
Arms Export Control Act.

   If confirmed, what tools would you utilize to address these 
        situations?

    Answer. If confirmed, I will use every tool available to me to 
ensure all foreign entities, government and private sector alike, 
participate fully in the Department's Blue Lantern End-Use Monitoring 
(EUM) program. For those persons unwilling to comply with all aspects 
of the program or who are investigated and determined to be in 
violation of the International Traffic in Arms Regulations (ITAR), I 
will, if confirmed, ensure the Department takes immediate action to 
minimize the risk to our National Security. These actions include 
placing these entities on our Watch List, severely limiting or negating 
altogether their access to U.S. origin munitions, and referring the 
suspect entity to law enforcement agencies where appropriate. Lastly, 
if confirmed, I will ensure the Department continues to engage foreign 
governments to raise their awareness of their obligations when 
procuring these defense articles and services from the United States.

    Question 11. Under what conditions, if any, would you recommend 
disapproving license applications because of the failure of those 
countries to facilitate end-use monitoring in the past?

    Answer. Without speaking to hypotheticals, if confirmed I will 
ensure the Directorate of Defense Trade Controls within the PM Bureau 
approves only those license applications that are in the best interests 
of U.S. foreign policy or national security. Per its established 
processes, the Directorate adjudicates each license application based 
on its own specific merits. If confirmed, I will ensure that in all 
instances, the Directorate continues to review the end-use monitoring 
history of one-hundred percent of foreign recipients as well as takes 
the appropriate follow-on actions when and where necessary.
State-DoD Relationship
    Question 12. Providing robust and effective security assistance to 
foreign partners requires strong communication between the State 
Department and the Department of Defense. Without interagency alignment 
and coordination, fulfilling U.S. strategic interests and goals through 
security assistance stagnate or go unmet:

   If confirmed how will you use your role to work with DoD to fulfill 
        our security assistance goals? What measures are in place to 
        ensure that proper communication and coordination occur?

    Answer. I understand the Department of State provides essential 
foreign policy guidance for Department of Defense (DoD) security 
assistance, and the Bureau of Political-Military Affairs (PM) plays a 
key coordinative role when providing this guidance. State has 
longstanding measures for coordinating security sector assistance 
(SSA), including through Integrated Country Strategies, Mission 
Resource Requests, Operational Plans, interagency planning forums, and 
program-specific proposal review processes. Broadly speaking, the 
Department works with DoD to develop and institutionalize the necessary 
structures and processes to efficiently and effectively meet 
coordination and concurrence requirements under DoD's security 
assistance authorities, as well as any other additional requirements 
mandated by the relevant legislation. Additionally, in 2017 both 
Departments established the joint State-DoD SSA Steering committee to 
oversee an intensification of enhanced joint planning. PM and OSD/
Security Cooperation co-chair this committee, and other standing 
members include the Director of the Office of U.S. Foreign Assistance 
Resources (F), OSD/Comptroller, Joint Staff, and the Defense Security 
Cooperation Agency.
    With regard to DoD's authority under 10 U.S.C. 333, the PM 
Assistant Secretary is designated as the Department's lead coordinator 
for the joint planning, development, and implementation of such 
programs. The Secretary of State's concurrence with section 333 
programs is delegated to F, who is best-positioned to maintain a full 
picture and analysis of how DoD's programming aligns with State/USAID 
foreign assistance resources.
    In fulfilling its lead coordination role under section 333, PM 
manages a consultative and inclusive planning and approval process to 
ensure that the Department's priorities and policy concerns are 
reflected in DoD's plans and programs. Because DoD's section 333 
programs are subject to the same restrictions or requirements that 
would be applicable to similar Department programming under Title 22 
authorities, PM also works with the Department's regional and 
functional bureau stakeholders, including the Office of the Legal 
Adviser, to determine applicable legal restrictions on DoD's proposed 
section 333 programming. State and DoD then work to address State's 
conditions on concurrence, which include Leahy vetting and may also 
include satisfying specific legal requirements or adhering to certain 
legal restrictions, prior to DoD's execution of the program.If 
confirmed, I look forward to working closely with DoD colleagues on 
these important issues.

    Question 13. Will you ensure the State Department's key equities 
are being represented during consideration of security assistance 
objectives?

    Answer. If confirmed, I will absolutely ensure the Department of 
State's key equities are being represented during consideration of 
security assistance objectives--this is one of the Bureau of Political-
Military Affairs' primary functions. The Department provides essential 
foreign policy guidance for Department of Defense (DoD) security 
assistance, safeguarding any investments we make in foreign security 
forces advance both political and security objectives; account for the 
political balance between civil and military institutions in the 
recipient country; are based on mutual, enduring interests between our 
countries; and do not cause long-term unintended effects in the country 
or region. If confirmed, I look forward to working closely with DoD to 
ensure our security assistance works in support of our foreign policy 
and national security objectives.
Human Rights
    Question 14. While security assistance allows the U.S. to provide 
critical aid to our allies and partners around the globe, it must also 
be used to facilitate the growth of human rights, civil institutions, 
and good governance.

   What are the most important actions you have taken in your career 
        to date to promote human rights and democracy? What have been 
        the impact of your actions?

    Answer. Throughout my career, at home and abroad, I have remained 
an advocate for freedom and human rights. Domestically, during my term 
as Executive Director of Log Cabin Republicans, I persistently 
advocated for equal rights and promoted legislation to provide basic 
fairness for all Americans. I am especially proud of successfully 
securing the necessary Republican votes in the House and Senate to 
repeal the ``Don't' Ask, Don't Tell'' (DADT) statute which excluded 
gays from military service.
    Overseas, all of my civilian and military tours in Africa and the 
Middle East included capacity building with host nation governments and 
partner nations' security forces. Each of these positons afforded me 
the opportunity to actively promote freedom, democracy, and human 
rights. Through the use of educational tools, coordination with civil 
society partners like U.S. Institute for Peace, and applying the 
leverage of access to security assistance, I have consistently sought 
to ensure our commitments to foreign partners comports with our 
American values.
    Further, when serving as an Alternate Representative on the United 
Nations Security Council and as Delegate on the U.N. Fifth committee 
(Budget), I advocated for transparency, accountability, and reform of 
the U.N. In these capacities, I worked with colleagues from other U.N. 
member states to establish a multilateral review of U.N. mandates where 
we collectively assessed the status of individual mandates, sought to 
ensure compliance with the Universal Declaration of Human Rights, and 
addressed determinations for completion or renewal of mandates.

    Question 15. How will you work to ensure State and DoD are taking 
human rights into consideration when granting security assistance?

    Answer. The potential impact on human rights is a central issue 
when providing security assistance to allies and partners. Every step 
of the assistance process--to include State reviews of DoD security 
assistance--should move forward with consideration given to human 
rights reporting from the embassies, intelligence sources, NGOs, the 
media, and other sources. If confirmed, I will ensure the Department 
continues to include human rights considerations into security 
assistance decisions. The Department will routinely engage with our 
partners on human rights issues and redirects assistance when 
necessary. Leahy vetting will remain a fundamental part of the 
screening process for security assistance. In addition, when possible, 
the Department can shape security assistance programs to actively 
promote positive human rights behavior.

    Question 16. Will you work with to leverage security assistance to 
ensure that our partners are upholding human rights and not using this 
assistance to damage human rights within their respective countries?

    Answer. If confirmed, I will work to ensure the provision of 
security assistance to our partners takes human rights concerns into 
account, and we work to make sure that we do not provide assistance to 
security forces that violate human rights. We should routinely engage 
with our partners on human rights issues and redirect or withhold 
assistance when necessary. Leahy vetting will remain a fundamental part 
of the screening process for security assistance. In addition, when 
possible, we can shape security assistance programs to actively promote 
positive human rights behavior.

    Question 17. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. As in my current capacity at JSOC, if confirmed, I will 
continue to lead by example maintaining high standards for myself and 
my colleagues, making our mission a priority, and consistently 
crediting colleagues. I will seek interagency engagement and 
professional development opportunities to enhance the careers of all 
Foreign Service and Civil Service colleagues. Further, I will flatten 
communications and over communicate with colleagues to ensure everyone 
in the Bureau of Political-Military Affairs has a shared understanding 
of our priorities, investment in the mission, and access to 
opportunities.Q

    Question 18. What steps will you take to ensure each of the 
supervisors in the Bureau of Political-Military Affairs are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed, I will lead by example maintaining a 
disciplined service ethos, amplifying professionalism among colleagues, 
investing in career development of colleagues, and recognizing the 
merit of colleagues. As in my current capacity at JSOC, I will continue 
to fully support EO and EEO, and will ensure those in leadership 
positions support and reflect an inclusive culture. Upon arrival at the 
Bureau of Political-Military Affairs, I will conduct an initial 
counseling session with each supervisor, and convey the importance of 
an inclusive work environment.

    Question 19. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns I may have through 
appropriate channels.

    Question 20. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns I may have through 
appropriate channels.

    Question 21. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No, there are no immediate family members with any 
financial interests abroad.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Major R. Clarke Cooper by Senator Todd Young

    Question 1. If confirmed, you will be responsible for policy 
direction on security assistance programs and will coordinate regularly 
with the Director of the Defense Security Cooperation Agency (DSCA). In 
January 2017, I wrote a letter to the Director of DSCA, highlighting a 
particular statute related to the transfer of excess defense articles 
and the impact on our industrial base. 22 U.S. Code 2321j provides 
authority to transfer excess defense articles. However, according to 
the statute, that authority is only provided if ``the transfer of 
[excess defense] articles will not have an adverse impact on the 
national technology and industrial base and, particularly, will not 
reduce the opportunities of [American companies] to sell.equipment to 
the countries.'' Do I have your commitment that you will review that 
statute closely and, if confirmed, do all you can to ensure that the 
administration follows both the letter and the spirit of that law?

    Answer. Yes, and as we have discussed, if confirmed, I will happily 
do so.

    Question 2. In addition to this overall limitation on transferring 
excess defense articles, in Section 1276 of the Fiscal Year 2018 
National Defense Authorization Act, Congress further specified the 
requirement to modernize HMMWVs in the United States before 
transferring them to allies as excess defense articles. If confirmed, 
do I have your commitment to work with your counterparts in DSCA and 
the Army to put the proper mechanisms in place, as appropriate, to 
carry out Section 1276 of the FY 18 NDAA?

    Answer. Yes. If confirmed, I will work with the Defense Security 
Cooperation Agency and the U.S. Army to carry out Section 1276 
including any special processes that may be necessary.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Major R. Clarke Cooper by Senator Edward J. Markey

    Question 1. Mr. Cooper--if confirmed, will you advocate for setting 
aside or renegotiating the settlement in Defense Distributed v. U.S. 
Department of State, 15-cv-00372-RP (W.D. Tex.), and work to ensure 
that blueprints, tutorials, CAD files and other online materials for 
the manufacture of 3D printed guns remain subject to U.S. export 
controls?

    Answer. If confirmed, in my capacity as Assistant Secretary of 
State for Political Military Affairs, I will aggressively advocate for 
the protection of unique defense technologies which are critical for 
our national and economic security.
    As we have discussed, there are reasons to be cautious about 
emerging 3D and computer aided design (CAD) technology with potential 
local and international security implications. I have not, however, 
been privy to internal State Department or Commerce Department 
interagency analysis or discussions about the particular litigation. If 
confirmed, I will closely study this issue in consultation with my 
Department, interagency, and intelligence community colleagues, along 
with Congress to collectively address the overarching security threats 
associated with weapons proliferation and economic insecurity.

    Question 2. Do you believe it was a mistake for the Trump 
administration to have entered into this settlement in the first place 
and to have reversed its position that these materials should be 
subject to export control under the International Tracking in Arms 
Regulations?

    Answer. As a member of the intelligence community, and at an open 
source level, it is fair to assess that 3D printing technology carries 
new possibilities but also comes with notable risk for abuse by 
criminals and terrorists. The same machines which allow astronauts on 
the international space station to print their own tools might also 
help a state like North Korea print military or industrial equipment to 
get around imposed sanctions. While most public attention around the 
widely available technology for printed weapons is focused on homemade 
guns, there are far more dangerous, operable, and readily available 
weapons and implements one can currently acquire with immediacy on the 
internet, and are more likely to be used in acts of crime and terror. 
Further, our security challenge is less associated with access to 3D 
printed parts or weaponry itself, but the concern is who may apply 3D 
technology to create weapons.
    As noted, I have not been privy to internal State Department or 
Commerce Department interagency analysis or discussions about the 
particular litigation. If confirmed, however, I will closely study this 
issue in consultation with my Department, interagency, and intelligence 
community colleagues, along with Congress to collectively address the 
parameters of International Tracking in Arms Regulations in relation to 
the overarching security threats associated with weapons proliferation 
and economic insecurity.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Major R. Clarke Cooper by Senator Cory A. Booker

A-29 Attack Aircraft for Nigeria
    Question 1.  I have been concerned about the sale of A-29 attack 
aircraft to the Nigerian Government. Last year, Senator Paul and I 
wrote a letter to the administration expressing concern about this sale 
considering reports of attacks on civilians by the Nigerian military.
    This includes a 2014 killing by the Nigerian security forces of 
over 600 mostly unarmed detainees, including children, a December 2015 
alleged massacre by soldiers of over 300 Shiite Muslims, and a January 
2017 attack on an IDP camp in Rann by the Nigerian air force in which 
over 200 refugees were killed.
    My understanding is that the sale of these war planes has been 
approved and the contract includes a training package on humanitarian 
law, human rights, targeting, Collateral Damage Estimation and Air-
Ground Integration. Yet, those training efforts seems woefully 
inadequate for security forces that are alleged to have committed such 
atrocities.

   If confirmed, how will you ensure that these warplanes are not used 
        against civilians?

    Answer. This major sale to Nigeria includes training and other 
components aimed at improving the professionalism of Nigerian security 
forces and will have a specific emphasis on protecting human rights, 
preventing harm to civilians, and upholding the Law of Armed Conflict. 
Training will include targeting protocols under international norms and 
human rights standards for leadership, intelligence experts, and 
pilots. If confirmed, I will ensure our foreign partner understands our 
expectation this equipment not be misused.

    Question 2. If they are used against civilians what actions would 
you take?

    Answer. As with any purchaser of U.S.-controlled defense equipment, 
if confirmed, I will work with my staff and interagency colleagues to 
ensure our partner understands U.S. expectations for the use of 
military items. If these expectations are not met, there is a full 
range of diplomatic options through political-military and military-to-
military channels. If warranted, support may cease if it is assessed 
U.S. equipment was and will likely continue to be misused. Further 
misuse of military equipment can affect future decisions on arms 
transfers.

    Question 3. Security Assistance to Africa/Niger: The amounts of 
security assistance to Africa has grown over the years. I just returned 
from a trip to the Sahel, visiting Niger and Burkina Faso, along with 
Senators Coons and Flake.
    Both are among the poorest countries in the world--Niger is second 
from the last on the Human Development Index. I was concerned by the 
heavy overreliance on our military to meet our foreign policy 
objectives.

   Do you believe AFRICOM's role in Niger is helping us to meet our 
        development goals in the Sahel?

    Answer. Since 2012, the United States has supported over $250 
million in security force assistance to Niger, where the Government 
faces terrorist and other transregional threats on three of its borders 
and where the relatively small Niger Armed Forces of approximately 
15,000 are overstretched. Threats from neighboring Mali and Nigeria 
disrupt markets and create significant population displacements. There 
are 129,500 internally displaced Nigeriens, while 167,000 Malians and 
Nigerians seek refuge in Niger. These vulnerabilities create unique 
development challenges, making it increasingly difficult for 
development assistance implementers to work safely in the field. So 
long as Niger is vulnerable to debilitating attacks from terrorists, 
development efforts will face significant challenges. U.S. Government 
security assistance, financed by both Title 22 and Title 10 funding and 
largely implemented by AFRICOM, helps meet these important challenges 
by enabling Niger's ability to defend itself against threats from 
violent extremist organizations both within and outside its border. 
Improvements in the security situation can provide space for good 
governance and development to take root.

    Question 4. Do you believe that AFRICOM is effectively coordinated 
with the State Department and USAID?

    Answer. Yes, and if confirmed, I will work to ensure that 
coordination between AFRICOM, the Department of State, and USAID 
remains effective. To ensure security programming meets our foreign 
policy objectives, the Political-Military Affairs Bureau, supported by 
the regional bureaus, hosts an annual conference to review planned 
Title 22 funding, with strong participation from the Department of 
Defense.
    In addition, senior leaders from all three agencies hold a yearly 
African Strategic Dialogue (ASD) to chart common strategic direction 
for their organizations in the diplomacy, development, and defense 
domains. It was a pleasure to be participant in the ASD in previous 
military capacities, and if confirmed, I look forward to fostering the 
ongoing interagency dialogue. Further, all three agencies also exchange 
and embed advisors to ensure there is appropriate communication between 
the agencies.
    Moreover, the State Department participates in AFRICOM's Title 10 
planning conferences to ensure our security assistance is synchronized 
with policy priorities. Diplomacy, development, and defense remain the 
three core pillars for our Africa engagement, and if confirmed, I will 
continue to promote our engagement and coordination.

    Question 5. If confirmed, how do you plan to ensure that our 
military operations in the Sahel are coordinated with State Department 
and USAID?

    Answer. The State Department, USAID, and Department of Defense 
already coordinate closely with each other and participate in the 
interagency process to determine regional strategies in the Sahel. Such 
exchanges occur ad hoc and through more formal mechanisms, including 
the Trans-Sahara Counterterrorism Partnership, Sahel Maghreb Deputy 
Assistant Secretaries' committee, Africa Strategic Dialogue, Africa 
Strategic Integration Conference, G-5 Sahel Interagency Working Group, 
and others. Our Ambassadors in the field communicate daily and share 
policy guidance with their country teams, which include USAID officers, 
Senior Defense Official/Defense Attaches, other military personnel, and 
interagency representatives.
    As directed by the President and U.S. law, Chiefs of Mission (COM) 
and the Commander of AFRICOM continuously cooperate to ensure an 
effective and sustainable whole of government effort to implement the 
President's foreign policy. This close cooperation ensures that 
activities are effective and sustainable. All disagreements, which are 
rare, are referred to the Secretary of Defense and Secretary of State 
for immediate resolution.
    DoD elements performing authorized military missions in support of 
Geographic Combatant Commanders are not under COM authority. The COM 
does not exercise command or supervisory roles over such personnel. 
However, the COM receives regular briefings on current and planned 
military activities in his or her country of assignment. When required 
by U.S. law, Presidential Directive, or special policies/directives, 
the COM's concurrence with planned operations must be obtained.
    I can attest from my service on the continent with SOCAFRICA and 
AFRICOM, the COM concurrence role is designed to give the COM a formal 
opportunity to evaluate the potential foreign policy and security 
implications of a given mission. If necessary, the COM concurrence can 
also set conditions to protect COM equities including, among other 
things, the security of the U.S. Mission and personnel. The concurrence 
role is not intended to review tactical aspects of any given mission or 
otherwise interfere with the command responsibilities.
    If confirmed, I will support existing coordination mechanisms, 
reinforce to COMs their critical concurrence role, and ensure that any 
gaps in coordination are identified and filled.
Growing Security Assistance in Africa
    Question 6. U.S. security assistance still comprises a small 
percentage of overall U.S. foreign aid to Africa, but both have grown 
considerably. Total U.S. aid to Africa in FY 1985, for example, was 
just under $1 billion, or roughly $2 billion in today's dollars.
    Total U.S. aid provided by the State Department, USAID, and DOD for 
sub-Saharan Africa in FY 2017 was around $8 billion.
    In addition, U.S. military engagement on the continent has been 
growing over the past decade, and African militaries are benefitting 
from a growing range of activities and joint exercises with U.S. forces 
that are difficult to quantify in dollar terms.

   What challenges do you see from our growing security assistance in 
        sub-Saharan Africa?

    Answer. The promotion of peace and security in Africa is an 
important U.S. policy priority, and is critical to every country's 
democracy, governance, economic, and development goals. Challenges 
associated with security assistance to a country can stem from poor 
governance, limited absorptive capacity, or competition from other 
partners in the same space, among other concerns. Some partners lack 
strong civilian governance and service delivery needed to accompany 
security sector reform. Poor civilian governance, whether marked by 
corruption, restrictions on human rights, incompetence, or impunity for 
security service abuses can undo the efforts of military and civilian 
security forces. Some partners do not have the financial, training, 
human resource, logistics processes, or infrastructure needed to 
maintain training and equipment.
    If confirmed, I will continue to promote holistic development, 
including the development of professional and accountable security 
forces. I will also promote a focus on institutional capacity building, 
which means helping transform security systems, processes, and 
institutions in partner states so they can meet the needs of their 
citizens; sustain assistance; respect the rule of law, civilian 
control, and human rights; and support stability and security at 
regional, national and local levels.

    Question 7. How do you see our deepening security relationship with 
countries such as Uganda and Chad which are led by two of Africa's 
longest-serving presidents and have governance challenges of their own?

    Answer. Promoting democratic governance and human rights, in 
addition to engaging with regional partners to further foreign policy 
and national security objectives are two critical priorities in Africa. 
In Uganda and Chad, I understand security forces are leading efforts to 
address regional security and peacekeeping challenges in East Africa 
and the Lake Chad Basin, respectively. If confirmed, and as applied 
when I served on the continent, I would insist that we continue to 
consider a force's ability to respect human rights, maintain 
appropriate command and control, develop positive civilian-military 
relations, address corruption, and re-establish a constructive state 
presence in unstable areas. I believe the performance of Ugandan and 
Chadian forces is central to peace and security in those countries and 
their regions. If confirmed, I will seek assurances from the 
Governments of Uganda and Chad, as well as other security partners, to 
hold their forces accountable in cases of poor performance and 
misconduct. Furthermore, I will focus on security assistance that 
allows their forces to contribute to domestic and regional efforts in a 
professional and sustainable manner.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            John Cotton Richmond by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career, I have been engaged in promoting 
human rights. Modern day slavery is a direct attack on individuals' 
fundamental human right, the right to be free. Liberty is not merely a 
concept, it is a critical right that allows people to make decisions 
about where they work and who touches their bodies. I have worked cases 
in India while leading International Justice Mission's office, in the 
United States as a federal prosecutor in the Department of Justice's 
Civil Rights Division, and as one of the two co-founders of the Human 
Trafficking Institute. I will continue to work to protect human rights, 
if confirmed.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development today across the globe. Please be 
as specific as possible.

    Answer. There are many pressing challenges around the globe today 
affecting democracy. Terrorism, nuclear proliferation, North Korea, 
religious and ethnic persecution all work against advances in democracy 
would be included on most lists of pressing challenges. I would also 
include on that list the denial of basic human rights, including the 
right to be free from those who traffic in human beings.

    Question 3. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs when you travel abroad? What 
steps will you take to pro-actively address efforts to restrict or 
penalize NGOs and civil society via legal or regulatory measures?

    Answer. If confirmed, I commit to robust engagement with civil 
society members, human rights and other nongovernmental organizations, 
and survivors of human trafficking. I also commit to collaborating 
closely with fellow State Department and interagency colleagues to 
ensure that protections are available to all identified victims of 
human trafficking, regardless of their sexual orientation or gender 
identity.
    Additionally, having worked for an NGO and started an NGO, I am 
keenly aware of the important role they play in our common cause to 
stop traffickers and care for survivors. I welcome their engagement and 
the diversity of ideas generated by civil society.

    Question 4. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? What unique challenges do 
lesbian, gay, bisexual, transgender and intersex (LGBTI) trafficking 
victims face? What specifically will you commit to do to help LGBTI 
trafficking victims?

    Answer. All people should enjoy the fundamental human right to be 
free. This is true regardless of their sexual orientation or gender 
identity. Lesbian, gay, bisexual, transgender, and intersex (LGBTI) 
individuals around the world often experience violence and 
discrimination because of their sexual orientation, gender identity or 
expression, or sex characteristics, which makes them particularly 
vulnerable to human trafficking. Some countries have enacted anti-
discrimination laws or conducted sensitivity training for law 
enforcement to protect the human rights of LGBTI persons. I look 
forward, if confirmed, to working with my colleagues at the Department 
of Justice, FBI, and Homeland Security as they work to investigative 
and prosecute traffickers who exploit LGBTI victims. Additionally, 
Survivor services are also essential for LGBTI victims and they must be 
tailored to each victim's unique needs. If confirmed, I will work hard 
to encourage governments to further strengthen their efforts by 
enhancing partnerships and soliciting input from LGBTI survivors of 
trafficking to strengthen training content and improve support 
services.
Trafficking in Persons (TIP) Report
    Question 5. One of the TIP Office's most important functions is the 
production of the annual Trafficking in Persons report. This report, 
among other things, determines which countries are not fully complying 
with standards for eliminating trafficking and thus subject to U.S. 
sanctions.

   How will you work with regional bureaus at the State Department to 
        ensure border line countries receive the appropriate 
        determination?
   What challenges do you expect you might face?

    Answer. The annual Trafficking in Persons Report (TIP Report) is an 
extremely important tool in the State Department's efforts to combat 
this crime around the world. If confirmed, I will ensure that the TIP 
Report is as accurate and objective as possible, and that it documents 
the successes and shortcomings of government anti-trafficking efforts 
measured against the minimum standards for the elimination of 
trafficking in persons established under U.S. law--criteria that are 
independent of political considerations or developments.
    I understand that producing the TIP Report is a year-round and 
whole-of-Department effort. If confirmed, I will ensure the dedicated 
staff from the Office to Monitor and Combat Trafficking in Persons (TIP 
Office) and officers in the regional bureaus and at posts around the 
world work together, including with senior Department officials, to 
gather information from foreign governments, media, and civil society 
to inform each of the narratives.
    Assessing government efforts to combat such a complex crime across 
varying environments is inherently difficult. If confirmed, I will 
continue this work with the utmost integrity and with the important 
responsibility of ensuring the TIP Report remains the gold standard of 
such assessments far into the future.
Labor Trafficking
    Question 6. Of the 20.9 million victims worldwide, the 
International Labor Organization estimates that 68 percent are trapped 
in labor trafficking. Yet, only 8 percent of the 9,071 convictions 
reported worldwide last year were labor cases. Labor traffickers 
operate with near impunity across the globe, in large part because of 
the increased resources it takes to recognize, investigate and 
prosecute these cases.

   How can the Department help build this expertise globally and 
        ensure that more labor cases are identified and prosecuted? 
        Please be specific.

    Answer. The rate of impunity for trafficking crimes, in particular 
forced labor, is a major concern of mine. If confirmed, I will work to 
ensure the United States Government remains a leader in pushing 
governments to address all forms of human trafficking, including by 
holding perpetrators of forced labor criminally accountable.
    If confirmed, I will ensure the Department focuses on forced labor 
through our diplomatic engagement, the Department's engagement with 
civil society and the private sector, the Department's interagency 
collaboration, and in the annual TIP Report. I will also make certain 
that the foreign assistance programming of the TIP Office continues to 
address both sex trafficking and labor trafficking.
Supply Chain
    Question 7.  The United States currently imports an estimated $142 
billion worth of goods that are likely to be made with forced labor, 
including $83.3 billion from countries ranked at the bottom--on Tier 3 
or the Tier 2 Watch List--of the TIP Report.

   As corporations increasingly expand their operations in the global 
        marketplace, how can the State Department incentivize companies 
        to protect their supply chains from forced labor?
   How do you intend to work with your counterparts at the office of 
        the U.S. Trade Representative, Customs and Border Protection, 
        the Department of Labor, and elsewhere, to ensure that the U.S. 
        rigorously enforces Section 307 of the Tariff Act and otherwise 
        cracks down on imports made with forced and child labor?

    Answer. An important avenue for addressing and preventing human 
trafficking is approaching the issue through the lens of global supply 
chains. The products and services generated by traffickers forcing 
individuals to work, flood the formal marketplace, corrupt the global 
economy, and taint purchases made by unwitting consumers.
    If confirmed, I would make addressing human trafficking in global 
supply chains a priority. Supply chain issues are cross-cutting and 
intertwined into much of the TIP Office's work, and I am excited to 
explore innovative ways to expand work in this area. Key to this will 
be partnering with other agencies, with the private sector, and with 
civil society. I would prioritize implementation of existing federal 
regulations that combat forced labor in federal procurement; partner 
with and develop tools for the private sector; cultivate best practices 
among an array of federal partners and key stakeholders; and encourage 
cross-sector collaboration.
    Trade enforcement has the potential to be a powerful tool for 
combating human trafficking. If confirmed, I will ensure the TIP 
Office, in close coordination with other bureaus and offices within the 
Department, continues to actively coordinate with the Department of 
Homeland Security and other interagency partners to enforce Section 307 
of the Tariff Act. I will also ensure the Office continues to maintain 
a dialogue with Customs and Border Protection and its new Forced Labor 
Division.
Experience
    Question 8. How will your casework experience at the Department of 
Justice and as an Assistant U.S. Attorney translate to international 
policymaking as Ambassador-at-Large for Trafficking in Persons? What 
lessons from your previous experience will you draw on in your new post 
if confirmed?

    Answer. My casework experience as a federal prosecutor will provide 
numerous insights if I am confirmed as the Ambassador-at-Large for 
Trafficking in Persons. Working cases allowed me to spend a significant 
amount of time with survivors and learn the cutting-edge techniques 
that traffickers use to exploit them. I also spent time with 
traffickers who shared with me about their methods and motivations. 
Policy is often most effective when it is informed by practice, and I 
am grateful to bring practical experience to the position. I will also 
bring with me my experience working with survivors in India, teaching 
human trafficking courses at Vanderbilt Law and Pepperdine Law, and 
participating in the United Nation's Office of Drugs and Crime work to 
implement the Palermo Protocol.
Child Soldiers
    Question 9. One widespread form of trafficking is the exploitation 
and abduction of children for purposes of war.

   What measures can be taken to prevent, deter and stop this horrific 
        practice of using child soldiers?
   What steps can the TIP Office take to contribute to broader State 
        Department efforts to address situations where child soldiers 
        are pervasive?

    Answer. The unlawful use and recruitment of child soldiers is a 
particularly heinous crime that, if confirmed, I will prioritize in my 
work with countries where it occurs. I will aggressively press 
governments around the world to hold perpetrators and their supporters 
accountable, and to appropriately demobilize and reintegrate victims of 
this crime. I will be a strong voice encouraging the U.S. Government to 
use the tools at its disposal to combat the recruitment and use of 
child soldiers, including those afforded under the Child Soldiers 
Prevention Act.
    If confirmed, I will work collaboratively across the Department and 
interagency to further efforts to build capacity and generate political 
will across the globe to bring an end to the recruitment and use of 
child soldiers. This will be accomplished with, among other tools, the 
use of foreign assistance programs, training and technical assistance, 
and strong diplomatic pressure. I will also ensure that the TIP Report 
accurately presents evidence of child soldiers wherever it exists.
Qatar ILO Agreement
    Question 10. With the recent conclusion of the 2018 World Cup, the 
world's attention now will turn to Qatar and the 2022 World Cup. There 
have been numerous reports over the past several years about the 
exploitation of migrant workers brought into Qatar to build the 
infrastructure for the World Cup. Qatar recently entered into a 
technical cooperation agreement with the International Labour 
Organization to address key concerns around forced labor in the 
country. It is critical that Qatar effectively implement this agreement 
and remove the legal structures that leave migrant workers vulnerable 
to abuse and forced labor.

   If confirmed, how will you work with the U.S. Department of Labor 
        to ensure the Government of Qatar fully implements the ILO 
        agreement?

    Answer. The exploitation of laborers in Qatar is a well-documented 
concern both in preparation for the 2022 World Cup and in the broader 
economy of the country. I was encouraged to see the Government of Qatar 
enter a cooperative agreement with the ILO, as well as sign a 
Memorandum of Understanding on human trafficking with then-Secretary 
Tillerson. Both agreements provide opportunities to work with the 
Government of Qatar to take tangible steps to address forced labor and 
broader labor issues in the country. If confirmed, I will work closely 
with the Bureau of Democracy, Human Rights, and Labor, the Department 
of Labor, the U.S. Trade Representative, and others to ensure the U.S. 
Government speaks with a unified voice in our advocacy with the Qatari 
Government and support all sincere efforts to address our labor 
concerns, including forced labor, in Qatar.
Forced Labor in Fishing
    Question 11. There have been numerous high-profile reports over the 
past few years about the problem of forced labor and human trafficking 
on fishing vessels in Southeast Asia. However, maritime trafficking is 
a problem in many areas around the world, including off the shores of 
the United States. This is a notoriously complex issue given the legal 
complications around jurisdiction and practical considerations of 
effective prevention and enforcement.

   If confirmed, what steps will you take to address trafficking on 
        fishing vessels and other maritime vessels?

    Answer. Risks of human trafficking in the global fishing industry 
are well-documented, including inland, coastal, and deep sea fishing 
vessels as well as in aquaculture and seafood processing around the 
world, including in Southeast Asia. If confirmed, I would support the 
ongoing work of the TIP Office and the interagency to address these 
issues, including efforts such as working to assist victims on fishing 
vessels and in seafood processing; equipping foreign governments to 
investigate and prosecute trafficking in the fishing industry; 
facilitating regional coordination to address these cross border 
crimes; and supporting the efforts of the private sector through 
development of risk-management tools focused on the seafood sector. I 
would also ensure that this issue is raised in bilateral discussions 
and covered thoroughly in the TIP Report. As awareness of this issue 
grows, I would seek to leverage further partnerships with other 
governments, the private sector, and civil society to achieve progress 
in this area.
Trafficking in Government Procurement
    Question 12. Many foreign governments, multinational companies and 
other international stakeholders have been encouraged by the leadership 
shown by the U.S. Government on human trafficking in government 
procurement and in ensuring that U.S. federal contractors operating 
overseas are addressing the human trafficking challenges in their 
supply chains. However, over the past few years since that policy has 
been implemented, there appears to have been little enforcement action 
or transparency around whatever actions may have been taken by the 
Government to enforce it.

   Within the interagency process, what will you do to encourage 
        robust implementation and enforcement of the these policies?

    Answer. The Federal Acquisition Regulation (FAR) rule, ``Ending 
Trafficking in Persons,'' was an important step forward in combating 
human trafficking in global supply chains. The FAR rule prohibits 
contractors and contractor employees from engaging in a number of 
activities known to lead to or facilitate human trafficking, including 
charging workers recruitment fees, withholding or confiscating workers' 
identity documents, or using misleading or fraudulent recruitment 
tactics, among others. This rule is not only an important example for 
other countries but a key first step in preventing U.S. taxpayer 
dollars from purchasing goods or services affected by human 
trafficking.
    If confirmed, I would pursue robust interagency coordination in 
implementation of these important policies. I would use the Senior 
Policy Operating Group (SPOG) and its Procurement & Supply Chains 
committee as a tool for encouraging progress in enforcement.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           John Cotton Richmond by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career, I have been engaged in promoting 
human rights. Modern day slavery is a direct attack on individuals' 
fundamental human right, the right to be free. Liberty is not merely a 
concept, it is a critical right that allows people to make decisions 
about where they work and who touches their bodies. I have worked cases 
in India while leading International Justice Mission's office, in the 
United States as a federal prosecutor in the Department of Justice's 
Civil Rights Division, and as one of the two co-founders of the Human 
Trafficking Institute. I will continue to work to protect human rights, 
if confirmed.
TVPA Central American Minors
    Question 2. In his State of the Union speech, the president 
advocated rolling back critical protections within the Trafficking 
Victims Protection Act (TVPA) that ensure children facing persecution 
in their home countries are screened for trafficking and are not 
repatriated to certain harm or death. TVPA provides for critical due 
process protections to ensure human treatment and opportunity for 
protection.

   Do you agree with the President's assertion that these are 
        ``loopholes'' that need to be closed?
   How will you work to ensure continued implementation of the child 
        trafficking screening provisions of TVPA as it relates to 
        unaccompanied minors arriving at the border?

    Answer. As I am not currently working for the administration, I 
will defer to current administration officials on administration views 
on legislation.
    That said, protecting children from human traffickers is immensely 
important and unaccompanied children are vulnerable to criminals in the 
United States, just as they are elsewhere in the world. The 2018 
Trafficking in Persons Report highlighted the need for the United 
States to integrate screening protocols in the context of immigration 
enforcement in order to improve victim identification and protection 
efforts. Beyond this, I would defer to the Department of Homeland 
Security, the agency tasked with enforcement of these provisions of the 
TVPA, for further details.
Transparency/Malaysia Upgrade
    Question 3. Some Members of Congress and human rights groups have 
raised concerns that the TIP Report's ranking process lacks 
transparency and may be subject to political pressure. My colleagues 
and I were particularly concerned about the 2015 upgrade of Malaysia's 
TIP ranking into order to qualify for the Trans-Pacific Partnership.

   If confirmed as the next Director of the J/TIP Office, what will 
        you do to ensure that the TIP Report is seen as credible and 
        objective?
   How will you respond to pressure from both within and outside the 
        Department regarding country rankings?

    Answer. The annual Trafficking in Persons Report (TIP Report) is an 
extremely important tool in the State Department's efforts to combat 
this crime around the world. If confirmed, I will ensure the TIP Report 
continues to be as accurate and objective as possible, and that it 
documents the successes and shortcomings of government anti-trafficking 
efforts measured against the minimum standards for the elimination of 
trafficking in persons established under U.S. law--criteria that are 
independent of political considerations or developments.
    I understand that producing the TIP Report is a year-round and 
whole-of-Department effort. If confirmed, I will ensure the dedicated 
staff from the Office to Monitor and Combat Trafficking in Persons (TIP 
Office) and officers in the regional bureaus and at posts around the 
world work together, including with senior Department officials, to 
gather information from foreign governments, media, and civil society 
to inform each of the narratives.
    Assessing government efforts to combat such a complex crime across 
varying environments is inherently difficult. If confirmed, I will 
continue this work with the utmost integrity and with the important 
responsibility of ensuring the TIP Report remains the gold standard of 
such assessments far into the future.
    I am told the Department has had robust engagement with this 
committee on the Report, and I look forward to continued partnership, 
if confirmed.

    Question 4. There have reportedly been instances in which J/TIP and 
regional bureaus within the State Department disagreed on the tier 
placement of certain countries in the TIP Report.

   What is your sense of J/TIP's relationship with the regional 
        bureaus?
   In your view, does J/TIP have sufficient institutional clout within 
        the State Department?

    Answer. While I am outside of government, it is difficult for me to 
comment on the internal operations or institutional relationships 
within the Department. However, if confirmed, I will make it a top 
priority to build relationships with my colleagues in the regional 
bureaus and at posts around the world, seeking innovative ways to 
collaborate and integrate human trafficking into our diplomacy with 
every government. I understand that producing the TIP Report is a year-
round and whole-of-Department effort, and that year-round diplomacy on 
human trafficking will depend upon fostering excellent working 
relationships with all of my colleagues and promoting the work of 
dedicated staff from the Office to Monitor and Combat Trafficking in 
Persons within the Department.
Libya
    Question 5. Last month, the UNSC acted to impose sanctions on 
individuals involved in trafficking African migrants in Libya. Libya 
has become a major conduit for trafficking, with report last fall of 
the auction and sale of migrants as slaves in Libya.

   If confirmed, how will you work with the U.N. and African 
        Governments to stem human trafficking in Libya?

    Answer. I share the outrage of the international community and 
Libyan authorities at the horrific accounts of human trafficking and 
the sale and abuse of migrants, refugees, and asylum-seekers in Libya. 
If confirmed, I would support the Department's continued engagement 
with the Government of National Accord (GNA) on the status of the 
Government's investigation, urging that it proceed swiftly and 
transparently.
    I understand the United States supports targeted U.N. sanctions for 
six individuals involved in human trafficking and migrant smuggling in 
Libya, and announced concurrent U.S. sanctions on these individuals on 
June 11. These designations are part of critical international efforts 
to hold human traffickers and migrant smugglers accountable for abusing 
migrants' human rights and engaging in acts that threaten the peace, 
stability, and security of Libya. However, targeted U.N. sanctions are 
only part of the solution. If confirmed, I would work to assist in U.S. 
efforts to support the GNA to combat human trafficking. I would also 
continue support for appropriate U.N. programs and help build Libyan 
capacity to combat human trafficking.
Labor Trafficking--Across Industries
    Question 6. Labor trafficking remains a major area of concern 
across the globe. Qatar has failed to implement meaningful trafficking 
reforms ahead of the 2022 FIFA World Cup; India, Bangladesh, and 
Cambodia continue to see millions of trafficked children working in the 
garment industry; and Thailand's fishing industry continues to be a 
major destination for labor trafficking from other parts of Southeast 
Asia. While the TIP Bureau has called attention to this with downgrades 
in rankings, a more focused, regional approach is required.

   If confirmed, what will you do to promote regional strategies to 
        eradicate labor trafficking in the fishing, garment, and 
        service industries?

    Answer. As global supply chains become longer and more complex, 
crossing multiple borders, regional, multilateral, and sector-wide 
strategies have become increasingly critical to effectively combating 
this crime. In addition to important bilateral engagement, we must also 
partner with the private sector, civil society, and multilateral 
organizations to devise innovative approaches to combating human 
trafficking where it affects entire industries.
    If confirmed, I would work to build upon existing efforts and forge 
new partnerships with the private sector. I would make use of regional 
forums such as the Bali Process that bring groups of nations together 
in joint action. I would continue the work of the TIP Office in 
developing tools for companies to identify and address risk. And, I 
would explore using TIP Office programing funds to support sector-wide 
solutions, looking for ways to partner with companies and industry 
associations to address forced labor in their supply chains.
    For example, if confirmed, I would support the ongoing work of the 
TIP Office and the interagency to combat forced labor in the fishing 
industry, including efforts such as working to assist victims on 
fishing vessels and in seafood processing, and equipping governments to 
more effectively investigate and prosecute trafficking in the fishing 
industry. I would also work to shine light on the risk of trafficking 
among domestic workers who migrate across borders and advocate for 
alternative, ethical models for migration that advance principles such 
the Employer Pays Principle for recruitment fees. Finally, to address 
the complex issue of trafficking in the garment sector, I might look 
for ways to complement or scale-up ongoing programs by the range of 
existing multi-stakeholder efforts already making strides in this 
space.
Diversity
    Question 7. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I am grateful for the talented community of career officers 
at the Department of State. I look forward to working with them and I 
believe the impact of their contributions will be enhanced by their 
diverse backgrounds. If confirmed, I will work to support their 
efforts, celebrate their accomplishments, and foster an even greater 
and more diverse community within J/TIP.

    Question 8. What steps will you take to ensure each of the 
supervisors in the Office to Monitor and Combat Trafficking are 
fostering an environment that is diverse and inclusive?

    Answer. Fostering a diverse and inclusive environment is not only 
the right thing to do, it also provides significant benefits to the 
Office's substantive work. If confirmed, I will prioritize efforts by 
the Office's leadership to ensure that each team members ideas and 
opinions are heard and that the Office's culture is welcoming and 
inclusive.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 11. Do you or any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.
Trafficking in Government Procurement
    Question 12. Many foreign governments, multinational companies and 
other international stakeholders have been encouraged by the leadership 
shown by the U.S. Government on human trafficking in government 
procurement and in ensuring that U.S. federal contractors operating 
overseas are addressing the human trafficking challenges in their 
supply chains. However, over the past few years since that policy has 
been implemented, there appears to have been little enforcement action 
or transparency around whatever actions may have been taken by the 
Government to enforce it.

   Within the interagency process, what will you do to encourage 
        robust implementation and enforcement of the these policies?

    Answer. The Federal Acquisition Regulation (FAR) rule, ``Ending 
Trafficking in Persons,'' was an important step forward in combating 
human trafficking in global supply chains. The FAR rule prohibits 
contractors and contractor employees from engaging in a number of 
activities known to lead to or facilitate human trafficking, including 
charging workers recruitment fees, withholding or confiscating workers' 
identity documents, or using misleading or fraudulent recruitment 
tactics, among others. This rule is not only an important example for 
other countries but a key first step in preventing U.S. taxpayer 
dollars from contributing to human trafficking.
    If confirmed, I would pursue robust interagency coordination in 
implementation of these important policies. I would use the Senior 
Policy Operating Group (SPOG) and its Procurement & Supply Chains 
committee as a tool for encouraging progress in enforcement. It will be 
important to inform U.S. Government procurement personnel and 
contractors of best practices that have been shown to prevent or 
mitigate the effects of trafficking, and to help contractors understand 
how to manage risk and minimize the compliance costs associated with 
the law and regulation.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              John Cotton Richmond by Senator Rob Portman

    Question 1. Since the most recent TIP report identifies the need 
for increased prosecution of those who solicit sex from trafficking 
victims as an area for improvement, do you plan to make this particular 
gap in enforcement of U.S. anti-trafficking laws a priority, both for 
purposes of the TIP report and also for purposes of the SPOG and the 
President's Interagency Task Force?

    Answer. It has been a long-standing policy of the U.S. Government 
that individuals who purchase commercial sex fuel the demand for sex 
trafficking. From my years as a prosecutor and through my work in the 
non-profit sector, I have seen firsthand how sex traffickers exploit 
individuals by committing this crime, either by trafficking children or 
trafficking adults through the use of force, fraud, or coercion.
    If confirmed, I would work hard to further the U.S. Government's 
efforts to proactively address the demand for sex trafficking, as well 
as the demand for labor trafficking.
    If confirmed, I will work to build upon the tools the State 
Department has to end demand, such as the enforcement of policies 
prohibiting federal employees and federal contractors from purchasing 
sex--even if legal in the country where these individuals work.
    If confirmed, as the Chair of the Senior Policy Operating Group and 
in support of Secretary Pompeo as Chair of the President's Interagency 
Task Force, I will work to highlight the importance of demand as a key 
component of a comprehensive anti-trafficking approach.
    Finally, if confirmed, I will ensure the TIP Office continues to 
address demand for commercial sex through bilateral diplomacy and that 
the annual TIP Report thoroughly covers demand for sex and labor 
trafficking.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             John Cotton Richmond by Senator Cory A. Booker

    Question 1. Do you believe we should continue to issue such a 
waiver this year for these countries particularly with regard to 
African countries--such as Nigeria, Mali, and Somalia--whose 
governments are, to varying degrees, U.S. counterterrorism partners?

    Answer. The U.S. Government should only issue waivers when they 
support important U.S. interests, including counterterrorism and 
regional stability, and do not undermine U.S. efforts to end 
recruitment and use of child soldiers. My understanding is, having not 
been part of the waiver process this year, the countries mentioned all 
received waivers in 2017 for programs that support important U.S. 
interests. If confirmed, I will work with colleagues within the 
Department to analyze carefully the efforts to end the recruitment and 
use of child soldiers, together with other U.S. interests, and make 
recommendations to the President regarding waivers accordingly. Thank 
you for your interest in efforts to end the recruitment and use of 
child soldiers around the world. I will make this human rights concern 
a priority.

    Question 2. How then will you evaluate whether it is our ``national 
interest'' to provide arms and training to these countries when the 
State Department has stated that they use or harbor child soldiers?

    Answer. As I understand it, the President's waiver determinations 
are a means of advancing policy goals as the U.S. Government seeks to 
use assistance to work with an affected country's military to promote 
needed reforms and professionalize their armed forces to be more 
respectful of human rights, democratic values, and civilian control of 
the military, among other activities. I also understand that in some 
cases, waiving the Child Soldiers Prevention Act's restriction 
facilitates additional opportunities to educate and work with those 
institutions to end the scourge of unlawful recruitment and use of 
child soldiers.
    If confirmed, I would work to link waivers to specific actions and 
elements of our bilateral engagement with each country. In doing so, 
the United States can use the possibility of a waiver to provide an 
incentive for reform so that the United States can continue to work 
closely with a government to end the unlawful use and recruitment of 
child soldiers.

                               __________

                              NOMINATIONS

                              ----------                              


                    THURSDAY, AUGUST 16, 2018 (A.M.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Isakson, Menendez, 
Shaheen, Coons, and Murphy.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations committee will come to 
order. Thank you for letting us solve a problem.
    Today we will consider the nomination of Ambassador David 
Hale to serve our country as Under Secretary of State for 
Political Affairs at the State Department. We welcome you and 
thank you for your service to our country for many, many years.
    Ambassador Hale currently serves as our ambassador to 
Pakistan and has previously served in that capacity in Lebanon 
and in Jordan. He is a career member of the Foreign Service and 
brings with him to this position over three decades of 
experience as a career Foreign Service officer, the majority of 
which has been spent in the Middle East.
    Beyond his general diplomatic and policy expertise, for 
which he is widely respected, he has extensive management 
experience through serving as Chief of Mission at various 
diplomatic posts abroad. That background is invaluable for 
anyone assuming this position.
    The Under Secretary for Political Affairs, or P, is the 
number-three person at the Department after the Deputy 
Secretary of State. The P Undersecretary also serves as crisis 
manager for the Department and serves as an advisor to the 
Secretary for all major personnel decisions, Department 
policies, and interagency communication.
    In addition to those duties, the P Under Secretary oversees 
all of the geographic bureaus in the Department, as well as the 
Bureau for International Organization, and must therefore 
manage our financial and personnel resources between the 
bureaus themselves and our diplomatic footprint around the 
globe.
    In the past, it has often seemed that the Under Secretaries 
for Political Affairs and Management would make these decisions 
together without much of a methodology and very little 
transparency. It is my belief that the Department would benefit 
from a methodology that allows decision-makers to assess the 
cost and benefits of allocations while also providing more 
transparency so that Congress can adequately exercise its 
oversight role.
    I want to thank you again for your willingness to serve. 
And just on a personal note, to have someone who is coming up 
from within the Department to be in this position, for someone 
who cares about institutions and building institutions that 
will last, it is heartening to me that someone from within is 
coming into this position. My guess is, with some of the 
turmoil that we have had within the State Department, it also 
is something that really many members of the Foreign Service 
who have committed their lives to foreign service I am sure are 
cheering you on today.
    Senator Menendez?

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Let me join you 
in welcoming Ambassador Hale back before the committee. Few 
diplomats have served our nation as ably and as honorably as 
Ambassador Hale in some of the most critical diplomatic posts.
    You seem to have a penchant for challenging posts, and I am 
confident that we have the right person for the job.
    Of course, Mr. Chairman, it takes somebody from New Jersey 
to ultimately do this type of job. So, we are thrilled to have 
the Ambassador before us.
    But let there be no mistake: If confirmed, you will face 
not only the immense challenges throughout the world 
confronting the United States, but also shaping and executing 
concrete policies to confront those challenges, which to this 
day I believe the administration has, in many cases, failed to 
do.
    If confirmed, your areas of responsibility would 
potentially encompass any and every issue before the 
Department, from crisis management to the day-to-day conduct of 
our diplomacy to the development of longer-term strategies.
    So let me briefly raise several core areas of concern where 
I expect to see you, Ambassador, if confirmed, playing a 
leading role at the Department.
    It is my sincere hope that someone with your knowledge and 
experience can help the administration adeptly develop and 
implement coherent strategies with diplomacy-led direction. Let 
me start with Russia.
    Let me be clear: Unlike the President, I do not consider 
Russia a friend. I believe Vladimir Putin is a geopolitical 
adversary who presents an ongoing threat to our democracy and 
global stability. I am curious to hear what advice you intend 
to provide the Secretary and the President on how we deal with 
Russia, from its interference in democratic processes to its 
use of chemical weapons in Ukraine and Syria.
    While the administration has taken some punitive steps 
against some offenses, it has failed to fully implement 
mandatory provisions under the Countering America's Adversaries 
Through Sanctions Act. Even if the administration will not act 
responsibly, Congress will. As you know, Senator Graham and I 
introduced new comprehensive legislation two weeks ago, and we 
would appreciate your thoughts on that bill.
    Moving to the Middle East, the administration has also 
flouted the statutory requirement in CAATSA to provide this 
committee with an Iran strategy. Re-imposing sanctions that 
this body worked for decades to legislate in and of itself is 
not a strategy. Trusting Russia to address the Iranian presence 
in Syria is not a strategy.
    Similarly, I would like to understand what our strategy is 
to address violence in Yemen, instability in Iraq, the 
tremendous humanitarian crisis and strains on refugee host 
nations like Jordan and Lebanon, and the pressure that this 
refugee crisis is creating in Europe.
    Speaking of refugees, the Trump administration slashed 
refugee admissions last year and is reportedly pushing for 
another devastating cut, to 15,000 refugees, the lowest since 
1980. This President seems to delight in picking on the most 
vulnerable people. America is much better than this. Failing to 
provide refuge to the world's most vulnerable, those seeking 
shelter from war and persecution, betrays America's values and 
relinquishes our role as the humanitarian leader.
    With respect to Afghanistan, how does the administration 
plan to balance reconciliation efforts with the Taliban in 
light of our military commitment?
    I also hope that, if confirmed, as you and I spoke, and I 
appreciate you coming by my office, you will pay particular 
attention to our own hemisphere. I have supported the 
administration's efforts to use targeted sanctions against 
Venezuelan officials, but our actions have been largely 
reactive, and a massive humanitarian and refugee crisis now 
threatens regional stability. I will soon be introducing a 
comprehensive bill regarding Venezuela with Senator Rubio, and 
I welcome your thoughts on that as well.
    In Central America, our efforts to work with Honduras and 
El Salvador and Guatemala to address the violence and political 
instability driving people to flee are not succeeding. Aside 
from tearing away children from their parents and locking up 
asylum seekers in cages, which is both reprehensible and 
ineffective, what is the administration going to do to address 
this issue?
    So there is much work to be done, yet across the world and 
counter to its own national security strategy, the 
administration is eroding support for democracy, good 
governance, transparency, and human rights around the world. 
The President routinely praises dictators and congratulates 
autocrats on winning rigged elections, and his budget request 
would decimate foreign assistance in support of our interests.
    I want to publicly raise, Mr. Chairman, a concern I raised 
with the Secretary privately, which is I hear that the 
administration is sending a rescissions package, which 
potentially would be a devastating blow to the State Department 
and USAID. And if it does so, and it does so in a timeframe in 
which Congress under the law cannot act, which I think would be 
illegal to do, that will have consequences. It is the only 
thing that we can do to strike back on a policy we believe is 
not right.
    So I hope that that is not the case, and I hope the 
Secretary can prevail upon the administration not to make such 
devastating blows.
    I plan to hear how you intend to promote these values 
across the Department in the future.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I know you were mentioning that to 
me before the meeting started, and I certainly, like you, will 
be inquiring towards that end. I do not know how they can do 
that legally, but we certainly look forward to seeing how to 
counter that if that is the case.
    With that, anything you have as far as written materials 
will be entered into the record. So if you could summarize your 
comments in about 5 minutes, we would appreciate it. If you 
have people here in support of you that you would like to 
introduce, we would love to meet them.
    With that, please begin.

STATEMENT OF HON. DAVID HALE OF NEW JERSEY, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, TO BE AN 
         UNDER SECRETARY OF STATE FOR POLITICAL AFFAIRS

    Ambassador Hale.  Thank you very much and good morning, 
Senator Corker, Ranking Member Menendez, and distinguished 
members of this committee. Thank you for the opportunity to 
appear before you today.
    I am joined by a high school friend, Carl Warner, and his 
son Matthew, who drove down from Morristown today to be with 
us.
    I first want to thank President Trump and Secretary Pompeo 
for their confidence in me to serve in this role, if confirmed. 
It is a tremendous honor to be nominated to serve our country, 
President Trump, Secretary of State Pompeo, and the men and 
women of the State Department as Under Secretary of State for 
Political Affairs. I approach this committee and the 
prospective position with humility and a commitment to serve to 
the best of my ability, as I have strived to do ever since 
Ambassador Edward Perkins first swore me into the Foreign 
Service in June, 1984.
    My call to public service began with my grandparents, 
Joseph and Elizabeth Kler. They were world travelers who always 
returned from abroad with stories, books, and pictures of a 
world beyond our shores. As a young man, I gained a growing 
realization that what happened overseas mattered a great deal 
to our country's security and prosperity. I came to realize 
that a career in the Foreign Service would allow me to protect 
and advance our interests abroad. That was the beginning of my 
path from Bridgewater, New Jersey to Beirut and beyond.
    In college, two professor-practitioners had a tremendous 
influence on my life, retired Ambassador Armin Meyer and future 
Secretary of State Madeleine Albright. Ambassador Meyer taught 
me in particular the value of quiet diplomacy, of the gains to 
be made through calm, candid, patient, persistent, and behind-
the-scenes engagement to achieve U.S. goals. Secretary Albright 
taught me that our diplomatic strength is rooted in our 
economic and military strength. She also taught me that while 
our strength is greatly enhanced through alliances and 
partnerships, there is no substitute for American leadership. I 
am convinced American values are at the core of our nation's 
success and influence and must remain there for our success to 
continue.
    Throughout my career in the Foreign Service, other mentors 
have included Ambassadors Ryan Crocker, Dick Murphy, Bill 
Burns, David Welch, and Dennis Ross, all of whom I watched 
maneuver through complex environments. I have always strived to 
emulate their firm approach, steady leadership, adept 
negotiating skills, calm temperaments, and commitment to 
results. I have also had the extraordinary privilege to work 
directly for and with six of the last seven secretaries of 
state, and I am eager to work closely with Secretary Pompeo, if 
confirmed.
    During my 34 years in the Foreign Service, I have developed 
a solid grounding in the work of the Under Secretary for 
Political Affairs, a role which entails extensive diplomatic 
interaction in innumerable bilateral and multilateral contexts, 
as well as the oversight of the regional and International 
Organizations bureaus. I have spent many years at high-threat 
posts, including as Ambassador to Jordan and Lebanon, and most 
recently to Pakistan. It was in Lebanon that I first had the 
opportunity to work with Secretary Pompeo, then visiting as a 
member of Congress. Later, during my tour in Pakistan, I worked 
with him in his capacity as CIA Director to free an American 
citizen and her family from terrorist captivity. Using my 
diplomatic skills to rescue an American in distress remains one 
of my proudest moments.
    On that note, my service has made me well aware of the many 
threats our nation faces. These threats are continually 
evolving, and our diplomatic security teams have my highest 
respect for protecting our diplomatic personnel and 
installations. Our ambassadors in the field, backed by the 
Department's leaders and experts, must constantly assess the 
risk/benefit equation of our presence and activities in often 
dangerous places. We have had hard lessons over the years, from 
Beirut to Benghazi. Although we absorb those lessons and 
minimize risk, we must also remember that our nation's security 
requires an active diplomatic presence on the front lines.
    If confirmed, I will help Secretary Pompeo put the State 
Department--which is comprised of my gifted Foreign and Civil 
Service colleagues, and our exceptional locally employed staff 
at missions abroad--back on track. Among my priorities will be 
crisis management, cultivating international alliances, 
developing the next generation of leaders in the Foreign and 
Civil Service, and communicating regularly with Congress. We 
have the finest diplomatic service in the world, and Secretary 
Pompeo has set us on the path to strong morale, readiness, and 
effectiveness.
    As the President, the Secretary, and the national security 
leadership make and conduct our nation's foreign policy, they 
deserve the State Department's best advice going up and most 
effective implementation going forward, drawn from the 
experience, talent, and diversity of its personnel. I am 
confident our diplomatic and civil service will continue to 
prove their value as an essential tool in advancing a results-
oriented foreign policy in the service of our nation.
    Finally, I look forward to the opportunity, if confirmed, 
to advance American diplomacy in consultation with Congress. 
For 34 years, I have interacted with members here and abroad. I 
started in a junior capacity as a CODEL control officer. In 
later postings, I had the honor to come up to Capitol Hill 
often to consult. I remember traveling to Michigan with Senator 
Levin to meet his constituents. As ambassador to three 
countries, I had the privilege of accompanying members to their 
meetings with foreign leaders.
    If confirmed, this body and the American people can have 
confidence that I will fulfill the Trump administration's 
foreign policy agenda with professionalism, integrity, and an 
eye toward results. I look forward to taking your questions.
    [Ambassador Hale's prepared statement follows:]


              Prepared Statement of Ambassador David Hale,

    Good morning, Senator Corker, Ranking Member Menendez, and 
distinguished members of the committee. Thank you for the opportunity 
to appear before you today.
    I first want to thank President Trump and Secretary Pompeo for 
their confidence in me to serve in this role, if confirmed. It is a 
tremendous honor to be nominated to serve our country, President Trump, 
Secretary of State Pompeo, and the men and women of the State 
Department as Under Secretary of State for Political Affairs. I 
approach this committee and the prospective position with humility and 
a commitment to serve to the best of my ability, as I have strived to 
do ever since Ambassador Edward Perkins first swore me into the Foreign 
Service in June, 1984.
    My call to public service began with my grandparents, Joseph and 
Elizabeth Kler. They were world travelers who always returned from 
abroad with stories, books, and pictures of a world beyond our shores. 
As a young man, I gained a growing realization that what happened 
overseas mattered a great deal to our country's security and 
prosperity. I came to realize that a career in the Foreign Service 
would allow me to protect and advance our interests abroad. That was 
the beginning of my path from Bridgewater, N.J. to Beirut, and beyond.
    In college, two professor-practitioners had a tremendous influence 
on my life: retired Ambassador Armin Meyer and future Secretary of 
State Madeleine Albright. Ambassador Meyer taught me in particular the 
value of quiet diplomacy--of the gains to be made through calm, candid, 
patient, persistent, and behind the scenes engagement to achieve U.S. 
goals.
    Secretary Albright taught me that our diplomatic strength is rooted 
in our economic and military strength. She also taught me that while 
our strength is greatly enhanced through alliances and partnerships, 
there is no substitute for American leadership. I am convinced American 
values are at the core of our nation's success and influence, and must 
remain there for our success to continue.
    Throughout my career in the Foreign Service, other mentors have 
included ambassadors Ryan Crocker, Dick Murphy, Bill Burns, David 
Welch, and Dennis Ross, all of whom I watched maneuver through complex 
environments. I have always strived to emulate their firm approach, 
steady leadership, adept negotiating skills, calm temperaments, and 
commitment to results. I have also had the extraordinary privilege to 
work directly for and with six of the last seven secretaries of state. 
I am eager to work closely with Secretary Pompeo, if confirmed.
    During my thirty-four years in the Foreign Service, I have 
developed a solid grounding in the work of the Under Secretary for 
Political Affairs, a role which entails extensive diplomatic 
interaction in innumerable bilateral and multilateral contexts, as well 
as the oversight of the regional and International Organizations 
bureaus. I've spent many years at high-threat posts, including as 
Ambassador to Jordan, Ambassador to Lebanon, and most recently, as 
Ambassador to Pakistan. It was in Lebanon that I first had the 
opportunity to work with Secretary Pompeo, then visiting as a member of 
Congress. Later, during my tour in Pakistan, I worked with him in his 
capacity as CIA Director to free an American citizen and her family 
from terrorist captivity. Using my diplomatic skills to rescue an 
American in distress remains one of my proudest moments.
    On that note, my service has made me well-aware of the many threats 
our nation faces. These threats are continually evolving, and our 
Diplomatic Security teams have my highest respect for protecting our 
diplomatic personnel and installations. Our ambassadors in the field, 
backed up by the Department's leaders and experts, must constantly 
assess the risk/benefit equation of our presence and activities in 
often dangerous places. We have had hard lessons over the years, from 
Beirut to Benghazi. Although we absorb those lessons and minimize risk, 
we must also remember that our nation's security requires an active 
diplomatic presence on the front lines.
    If confirmed, I will help Secretary Pompeo put the State 
Department--which is comprised of my gifted Foreign and Civil Service 
colleagues, and our exceptional Locally Employed Staff at missions 
abroad--back on track. Among my priorities will be crisis management, 
cultivating international alliances, developing the next generation of 
leaders in the Foreign Service and Civil Service, and communicating 
regularly with Congress. We have the finest diplomatic service in the 
world, and Secretary Pompeo has set us on the path to strong morale, 
readiness, and effectiveness. As the President, the Secretary, and the 
national security leadership make and conduct our nation's foreign 
policy, they deserve the State Department's best advice going up and 
most effective implementation going forward, drawn from the experience, 
talent, and diversity of its personnel. I am confident our diplomatic 
and civil service will continue to prove their value as an essential 
tool in advancing a results-oriented foreign policy in the service of 
our nation.
    Finally, I look forward to the opportunity, if confirmed, to 
advancing American diplomacy in consultation with Congress. For thirty-
four years, I have interacted with members here and abroad. I started 
in a junior capacity as a CODEL control officer countless times. In 
later postings, I had the honor to come to Capitol Hill often to 
consult members and staff. I remember traveling to Michigan with 
Senator Levin to meet his constituents and discuss the Middle East. As 
ambassador to three countries, I had the privilege of accompanying 
members to their meetings with foreign leaders. This is one of the most 
rewarding and essential functions of an embassy.
    If confirmed, this body and the American people can have confidence 
that I will fulfill the Trump administration's foreign policy agenda 
with professionalism, integrity, and an eye toward results. I look 
forward to taking your questions.


    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you.
    Ambassador, an issue I have raised with Secretary Pompeo 
and consider to be of the utmost importance is the need for 
greater transparency, openness, and communication for the 
Department in dealing with the committee and with the American 
people. Regular press briefings, timely response to committee 
requests for briefings and information, departmental witnesses 
for hearings are all essential to make sure that we as a 
government and as a nation can advance our foreign policy 
effectively. I trust that you agree and would engage with this 
committee in that view?
    Ambassador Hale. I do agree.
    Senator Menendez. Thank you.
    Let me ask you this. If you are confirmed, you will be 
responsible for the Bureau of International Organizations. As 
you may be aware, the Inspector General is currently 
investigating credible reports that political appointees to the 
Department, without Senate confirmation, have been 
systematically compiling lists of career civil servants they 
feel are not ``loyal'' to the President, going as far as 
collecting clearance pages that reflect approval of previous 
presidents' policy initiatives; in essence, targeting people 
for doing their jobs.
    It is the latest expression of something that I think the 
President does not quite understand, that those of you in the 
Foreign Service are committed to the advocacy of policy 
regardless of who sits in the office. So they take an oath to 
defend and protect the Constitution.
    What steps would you take to ensure that career officers 
are protected from retribution for perceived disloyalty to the 
current president?
    Ambassador Hale. Well, the alleged behavior that you 
described I find highly objectionable, if true. I am pleased to 
learn that the State Department is investigating these 
allegations. That is the appropriate thing to do. We have a 
very strong, independent Inspector General, and we have various 
procedures to deal with any findings that they may uncover.
    These are matters of law as well as policy. They would 
also, if true, create the wrong climate. We want a climate of 
inclusion. We want an environment at the State Department where 
people feel free to express their opinions.
    I think through my leadership of example, as well as making 
sure that our policies are enforced to deal with these matters 
would be the appropriate way to handle the issue.
    Senator Menendez. Let me turn to Russia. Do you believe the 
intelligence community's assessments that Russia interfered in 
the 2016 election?
    Ambassador Hale. Yes, I do.
    Senator Menendez. And do you believe that Russia continues 
to attempt to undermine American democracy?
    Ambassador Hale. I do.
    Senator Menendez. What would you advise the Secretary and 
the President, if you had the opportunity, about how do we deal 
with Russia?
    Ambassador Hale. Overall, I think it is important that we 
adopt a multifaceted approach to Russia. They are a very 
difficult country to deal with. Their behavior in many areas is 
unacceptable. I think it is important that we call out these 
transgressions when they occur publicly. I think it is 
important that we have a frank dialogue privately to express in 
very direct terms what we find objectionable and what we 
believe needs to be changed.
    I think the resilience of our allies and of our alliance in 
NATO is terribly important to dealing with this, so we need to 
reinforce that.
    Then targeted sanctions I think can be highly effective in 
making sure that we continue to increase the cost for this kind 
of behavior.
    Senator Menendez. I appreciate that.
    Let me turn to Iran. While I did not support the JCPOA, I 
am concerned that just unilaterally walking away from it is, in 
and of itself, not a strategy. What would you advise the 
Secretary and the President as it relates to developing a 
comprehensive strategy on Iran, something that is called for 
under CAATSA, that was due in January of this year, and it is 
now August and we have not received?
    Ambassador Hale. Well, I think that the appropriate 
strategy at this stage is to maximize our financial and 
diplomatic pressure on Iran, and isolation, to build a web of 
allies who are like-minded who will join us in that effort to 
neutralize Iran's highly objectionable behavior and 
interference in the affairs of their neighbors throughout the 
Middle East, their support for proxy and terrorist groups, to 
increase the cost of that; and, of course, to do everything to 
prevent their acquisition of a nuclear weapons program.
    Senator Menendez. We need to multi-lateralize our effort, 
though. So, while it is a little difficult when you slap 
tariffs on your closest allies and when you walk away without 
engaging them in a process that will bring you a multi-
lateralized effort. So we will realize consequences on Iran's 
economy as a result of companies divesting themselves in order 
to avoid American sanctions, but that does not multi-lateralize 
our effort.
    Should we not seek to multi-lateralize those efforts?
    Ambassador Hale. I agree, we should.
    Senator Menendez. Listen, let me ask you about the Central 
American triangle. If we wanted to deal with unaccompanied 
individuals or those seeking asylum--they seek asylum because 
their choice is to stay or die, or flee and have a chance at 
living--should we not be making a strategic, comprehensive 
effort in Central America to deal with some of the challenges 
that drive people to leave their countries?
    Ambassador Hale. I firmly believe that that is correct.
    Senator Menendez. Will you be part of helping to develop 
that?
    Ambassador Hale. And I will be part of that, yes.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you. Very good.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Hello again. This is our second meeting today. Good to be 
with you.
    In your prepared statement you made reference to working 
with Secretary Pompeo on the release of an American citizen 
recently as one of the most memorable experiences in your 
service. Is that right? Can you tell us who that is and what 
the circumstances were?
    Ambassador Hale. The Coleman family, the Coleman Boyle 
family, American citizen married to a Canadian, and they had 
several children that were held hostage in the Afghanistan-
Pakistan border area for several years, and we were able to 
discover their location and persuade the Pakistani authorities 
to act swiftly to gain their release from these terrorist 
groups. I worked very closely with Secretary Tillerson and CIA 
Director Pompeo at the time.
    Senator Isakson. I am sure that is rewarding work. That 
happens a lot more than we really know it happens in this 
country, obviously for security reasons.
    I shared with you earlier when we met that I had a 
Pakistani foreign exchange student living with me for a year in 
my senior year in high school, which, as you can tell from 
looking at me, was a long time ago. But I learned a lot living 
with a Muslim student from Pakistan for a year about the Muslim 
faith, about that part of the world and everything else.
    In the years since then, everything that happened that 
involved Pakistan I took a keen interest in, mainly because I 
knew Asfak Assad, and he and I remained friends all these 
years. He is now a Caterpillar dealer in Dubai.
    My question is that Pakistan is a strange bedfellow. I 
guess that is the right word. They have been an invaluable help 
to the United States in a strategic location, in a very 
dangerous part of the world, but they have also frustrated me, 
and I will speak only for myself, particularly in the Bin Laden 
affair when he was there for--we do not know how many years, 
but a number of years after 9/11 before we finally found him, 
and I wondered how cooperative the Pakistanis were throughout 
that whole era as to why he was there and yet we never knew it, 
and we did not get him until 10 years later.
    Is their level of cooperation better today than it was, 
say, five years ago when he was still there?
    Ambassador Hale. I would say it is mixed. I will not draw 
the comparison because I was not in Pakistan five years ago. I 
was involved in the Middle East. But it is a mixed record. 
There are areas where we are able to cooperate very effectively 
together. There are many terrorist groups that they perceive as 
their enemy and we perceive as our enemy, and we are going 
after them, including ISIS.
    We have very strong programs to help build the resilience 
of Pakistan. We do not want Pakistan to be in any way 
destabilized.
    The problem is that we are not completely in agreement on a 
key issue, which is the presence of the Haqqani Network inside 
Pakistan, which is able to freely conduct operations across the 
Afghan border. That is the essence of our sharpest difference 
right now. We continue to work on it, but we wish to do so in a 
way in which we are able to gain their cooperation because 
Pakistan has a lot to offer in resolving the disputes in 
Afghanistan, including in helping us get the Taliban and the 
Afghan Government sitting together talking about peace.
    Senator Isakson. I think maintaining a relationship with 
Pakistan is absolutely essential to your department, to the 
Secretary of State, to our entire country, but it is a very 
strange partner sometimes in a very dangerous part of the world 
vis-`-vis the largest democracy in the world being India right 
next door, but who are equally important to us as a country.
    You said in your prepared remarks about learning so much 
and admiring so much Madeleine Albright, and you talked about 
her strength and her belief in a strong military and diplomacy 
as partners in the way she ran the Secretary of State's office. 
I agree with that. She was a very adept Secretary of State.
    What of her practices do you plan to follow, and any of the 
things you learned from her that you are going to use in your 
service?
    Ambassador Hale. Well, that was one key element. I also 
think the integration of our economic strategies overseas with 
our traditional political national security diplomacy is very 
important, an area that I hope we can work on together.
    I also think Secretary Albright was very gifted at 
persuading foreign leaders and counterparts to join us in 
multilateral strategies to deal with the challenges that we 
face. That was something I admired greatly, the way she did it. 
She was firm. She went about it in a very firm, direct, frank 
way, and she gained allies by persuading countries that the 
right cause was to work with us.
    Senator Isakson. You know, the situation in New Mexico, I 
saw a report on the television this morning about the 
investigation of the sheik, the blind sheik in New York who was 
ultimately convicted of terrorism against the United States. 
But one of the things that he had promoted in his teachings in 
his mosque in America was for radical Islam to go and colonize 
in the United States and create things exactly like what we 
have found existed in New Mexico, where they were raising 
children, teaching them terror and trying to spread Islam 
through that twisted view of their religion.
    Do you see in your experience--and you have been in some 
areas greatly affected by Islamic terrorism in Islamic 
countries. Do you see a growth of that anywhere else, or have 
you seen a growth of that anywhere else in the world?
    Ambassador Hale. I think one of the elements that we face 
today that we did not face before is that this can happen 
almost anywhere, in so many different places. We have seen the 
exploitation of young people through this kind of ideology, and 
it is not the Middle East anymore, right? It is happening in 
the Western hemisphere, it is happening in Europe. So again, we 
need all of our allies, all of those societies that are 
vulnerable to this, to be sharing ideas together on how to 
combat this and reduce its threat to us.
    Senator Isakson. Well, I wish you good luck, and I am sure 
we are going to benefit from your experience and knowledge, 
particularly in that part of the world.
    Thank you for your service to the country.
    Ambassador Hale. Thank you.
    The Chairman. Thank you, sir.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Good morning, Ambassador Hale. Thank you for being willing 
to consider taking on this position at this critical time in 
the world, and congratulations on your nomination.
    As I am sure you are aware, the President on Monday signed 
the defense bill, and that included a bipartisan resolution 
that passed this committee authored by Senator Young and me to 
address the humanitarian crisis in Yemen. It prohibits the U.S. 
military from continuing to provide aerial refueling for the 
Saudi-led coalition unless the Secretary of State repeatedly 
certifies that the Government of Saudi Arabia and the UAE are 
taking steps to end the civil war, to address the humanitarian 
crisis, and to reduce the risk to civilians.
    Now, I am sure many of us watched the aftermath of the 
horrific Saudi bombing of a school bus in northern Yemen that 
killed 51 people, including 40 children. Can you tell me how, 
if you are confirmed, you will approach making sure these 
certifications have been made and that the Secretary of State 
and the Department of State does everything possible to try and 
get the Saudis and the Emiratis to comply with reducing the 
crisis in Yemen, especially in view of the President's 
statement that he does not believe he needs to abide by this?
    Ambassador Hale. I think that we have to approach the 
situation in Yemen through several avenues. One is obviously to 
work with the Saudis and the Emiratis so that their air forces 
and their militaries are using the very best practices to 
minimize civilian casualties. And we have a training program 
underway to work on that.
    Senator Shaheen. And I am familiar with that, but I think 
what this resolution suggests is that we need to go beyond 
that. It is not just about our efforts to reduce casualties. It 
is about getting them to end the conflict, to come to the 
negotiating table, and to stop their horrific collateral damage 
that is happening as a result of those airstrikes.
    Ambassador Hale. I understand and I agree. I think that the 
significant effort right now on the political front is through 
the U.N. Special Envoy to introduce the elements necessary to 
find a political solution. There is no military solution to 
this problem.
    Senator Shaheen. Right.
    Ambassador Hale. We need to be engaging our Saudi and 
Emirati colleagues at the highest level to shape that approach.
    Senator Shaheen. And are we doing that, and is the 
Secretary of State willing to actually decertify our support 
for those aerial refueling efforts if he finds and we find that 
they are not trying to engage in those negotiation efforts?
    Ambassador Hale. I think if we are unable to find the 
elements that are required to certify, then we will, of course, 
have to act accordingly. That is the law. I as a nominee, I 
cannot speak for the Secretary of State at this stage, and I am 
not fully briefed on the details of the legislation, so I do 
not want to say anything misleading. But I understand the 
significance of this and the need for us to be in accordance 
with the law.
    Senator Shaheen. And if you are confirmed, will you report 
back to this committee on what you have learned?
    Ambassador Hale. Absolutely.
    Senator Shaheen. Thank you.
    I want to go to another issue that I continue to be very 
concerned about, and that is the President's executive order 
reinstating the Mexico City policy, or the global gag rule, and 
expanding that dramatically to include all support for health 
care for people around the world.
    According to Marie Stokes International, it estimates that 
2 million women that it provides services to will lose access 
to contraception as a result of this policy, and that from 2017 
to 2020 this policy, this expansion of that global gag rule, 
will result in 6.5 million unintended pregnancies, 2.2 million 
abortions from the lack of family planning resources, 2.1 
million unsafe abortions, and 21,700 maternal deaths. That is 
just one organization that has historically worked with us in 
terms of funding for health care.
    NGOs have reported that rural communities are being cut off 
from health services, and in Mozambique and Zimbabwe HIV 
prevention services have been dismantled, and that risks the 
progress that has been made in HIV prevention.
    So can you tell me what you will do, if confirmed, to try 
and address those deaths that are going to result from this 
policy? A policy that is supposed to result in a reduction in 
the number of abortions is actually going to increase the 
number of abortions and the number of unintended pregnancies. 
So how do you see following up to address what is happening to 
the most vulnerable people around the world because of this 
policy?
    Ambassador Hale. Well, thank you. I think that is a very 
key question, and I would just say it has largely been outside 
my arena of responsibility. In the countries I have served we 
have successfully managed to maintain our funding programs in 
accordance with the policies. So we have not had that kind of 
disruption in Pakistan or in Lebanon or Jordan.
    I think the first step for me will be to study the facts. 
You have just outlined some very disturbing data. I need to be 
better educated about that, and then work with my colleagues to 
see what the best policy is, to find that balance between these 
two objectives.
    Senator Shaheen. Well, I know that the State Department is 
doing a report that should come out this fall that will show 
further data on what the impacts have been. I hope that you 
will take a look at that and actually report back to this 
committee on what you expect to do as a result of what you find 
in that report.
    Ambassador Hale. I can assure you I will do so.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Coons. Thank you.
    Senator Coons. Thank you, Mr. Chairman.
    Thank you, Ambassador Hale, for your long record of service 
to our country and your willingness to step forward and to 
serve again in a very demanding position at a time of great 
challenges facing the United States on the world stage. I am 
heartened that the administration has nominated a career 
Foreign Service officer and New Jersey native with more than 30 
years of experience for this very important position. If there 
are no Delawareans available, I am certain that New Jerseyans 
are the most qualified and capable.
    Let me turn first, if I could, to China. In a lot of ways I 
think China will be our greatest international challenge of the 
century. The national security strategy notes that China seeks 
to displace the United States in the Indo-Pacific and expand 
the reaches of its state-driven economic model and reorder the 
region in its favor.
    Two questions. A key part of this effort is the 
militarization of the South China Sea. As Under Secretary, how 
would you revive diplomatic efforts to condemn and counter 
Chinese militarization of the South China Sea; and how will you 
engage with and reassure our regional allies--South Korea, 
Australia, Japan--of our commitment to the region after our 
withdrawal from the TPP and the, I think, unconstructive 
imposition of tariffs on treaty allies like Japan?
    Ambassador Hale. Well, I am a firm believer in engagement. 
I think the first step will be to continue to expand our 
diplomatic conversations with these key countries that are 
bordering that area. Vietnam in particular, I think, is a key 
partner in confronting these inroads by China. I think also 
that we need to build a united front which has frayed a bit, 
perhaps, over time. That will be a very effective tool. So I 
would look to, if confirmed, be involved in that effort.
    I also think our military presence is absolutely crucial, 
that we maintain the freedom of transit through that area. It 
is of vital importance to our nation and to our allies.
    So I think those are the two key pillars to build a 
strategy upon.
    Senator Coons. The other question I want to ask about China 
is about their One Belt, One Road initiative. As Ambassador to 
Pakistan, you certainly saw ways in which China is using its 
infrastructure investment to extend its reach. They are 
building ports and highways, railways and other projects in 
Pakistan and throughout the region. Earlier this year Senator 
Corker and I, joined by a very wide bipartisan group here, 
passed the BUILD Act to modernize our development finance 
tools, something supported by the administration.
    Do you believe these tools could help us successfully 
compete with the belt and road initiative and advance our 
foreign policy objectives? What else do we need to be doing in 
the region to be more successful at pushing back on what I see 
as a major strategic initiative by China?
    Ambassador Hale. I do think that is a very important tool. 
Another one would be to really work very hard to get U.S. 
business involved, which can overshadow anything that U.S. 
assistance can accomplish. If American business is present in 
these countries, that opens up the field for competition and I 
think in and of itself will speak to the nations involved about 
the benefits of working with the United States.
    Senator Coons. In your written testimony you said, ``I am 
convinced American values are at the core of our nation's 
success and influence and must remain there for that success to 
continue.'' I could not agree more, and I think one of our core 
values, one of the things that defines us is as a democracy 
that values free press, free speech, independent judiciary, and 
so forth. I am concerned about the rise of authoritarianism 
around the world and the failure by our president to clearly 
defend our democratic allies from aggressive actions by 
authoritarian governments.
    So I just wanted to ask whether you believe countries like 
Russia and China see political ideology and values as an aspect 
of geopolitical competition and seek to advance their governing 
models against ours, and how you think the role of values and 
human rights should play in foreign policy, and what you can do 
in this position, if confirmed, to strengthen and advance that 
at a time when the administration seems determined to make deep 
cuts to State and USAID?
    Ambassador Hale. I do believe that China and Russia seek to 
advance their form of government more widely, and that that is 
pernicious, contrary to U.S. interests. I think if you look all 
around the borders, particularly of Russia, it is important 
that we build the resilience of those societies that are 
vulnerable, internally and externally, to that kind of 
penetration. So I am very committed to that, as well.
    I also believe that it is important that human rights be an 
integrated part, at the core of our national security 
strategies for a range of countries, stretching from North 
Korea to Burma, a part of the world I am now working in, all 
the way to the Western Hemisphere, Nicaragua and Venezuela and 
Cuba, as well.
    Senator Coons. One of the real tragedies of the last many 
years now is the brutal war in Syria and Assad's massacre of 
hundreds of thousands of his own people. I would be interested 
in whether you believe we can work with the Russians to counter 
and reduce the Iranian presence in Syria and to prevent 
advanced weaponry from reaching Hezbollah and other Iranian 
proxies, and whether you think the State Department and the 
President should and can be clear with Russia that they bear 
responsibility for enabling Assad's massacre of his own people.
    Ambassador Hale. I agree completely. I think we must be 
clear about Russian responsibility, as well as Iranian 
responsibility for what has happened there. I also believe that 
we should try to work with the Russians to see if we can help 
build a better Syria. I understand the Russians have come to us 
to seek assistance because neither Russia nor Iran has the 
wherewithal to rebuild that society, which will be essential if 
there is going to be peace and stability. But we should not be 
rushing without assistance until it is clear that there is a 
game plan that will stabilize that country, eliminate the 
presence of Iranian troops, and put the political future of 
that society in the hands of its people.
    Senator Coons. Do you think a withdrawal of American troops 
or support or advisors from Syria would be wise or would 
advance that policy?
    Ambassador Hale. Well, my understanding, sir, is that they 
are there to deal with the primary problem of the ISIS threat. 
That was the justification for the deployment. I think once we 
have accomplished that goal--we have not yet; we are getting 
closer--it would be appropriate to review our Syria policy, 
including that aspect of it.
    Senator Coons. Well, I will simply renew a point made 
forcefully earlier by the Ranking Member, that the 
administration has so far failed to deliver any clear policy 
strategy around Iran. I am gravely concerned about Iran's 
steady projection of force farther and farther into the region 
and its sustained presence in Syria, and I think finding ways 
that we can help rebuild Syrian society, help stabilize Syrian 
society, but do so within our values and our interests is a key 
challenge for the State Department.
    Ambassador, thank you for your willingness to take on a 
very difficult service, and thank you for the ways in which I 
know we can count on you to be an advocate for the career 
professionals of our State Department, folks who do wonderful 
work around the world every day.
    The Chairman. We are still discussing the rescission issue 
that was brought up on the front end.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Ambassador Hale, thank you for your willingness to serve. I 
look forward to supporting your nomination as it moves forward. 
You are a good and wise choice.
    Last week we were all horrified by reports that the U.S.-
supported, Saudi-led bombing campaign hit a school bus in 
northern Yemen, resulting in the deaths of dozens of children. 
The initial response from the Saudi coalition was that this was 
a legitimate military target, which is patently ridiculous. 
They now have hunkered down and are refusing to answer my more 
questions pending an investigation.
    As you note, there is an obligation in existing law that 
any U.S. participation in foreign military operations comports 
with basic humanitarian laws. Notwithstanding the question of 
whether the President is going to comply with the provisions of 
the National Defense Authorization Act, that is already the 
law. The Saudis are going to undertake an investigation, which 
I think we understand what the end result will be, a 
vindication of the Saudis.
    But in order to comply with our own statutes, we need to be 
investigating as well, and there is no sign, as far as I can 
tell, that we are undergoing a comprehensive investigation of 
this atrocity or the many others that have been committed this 
year. We have had a number of civilian targets hit, potentially 
intentionally, this year, with bombs paid for by the United 
States, a bombing campaign supported by the United States.
    How important is it that the United States do our own 
investigation? What do you know about the scope of any 
investigation that we may be contemplating on the school bus 
bombing but, writ large, on a bombing campaign that seems to be 
getting worse, not better? At some point we have to believe our 
eyes, not what we are being told about the ability of the 
Saudis to target effectively.
    Ambassador Hale. Well, I do think this is a key matter, 
Senator, so thank you for raising it. As a nominee, I confess I 
am not fully briefed on the details of what we are doing. I do 
understand, though, there is engagement with the Saudis at a 
fairly high level to discuss this episode and to find out what 
has happened. I would not describe that as an investigation, 
but I understand what you are saying and, if confirmed, I will 
certainly follow up vigorously to make sure we are doing 
everything to be in accordance with the law and to understand 
the facts, which is necessary in order to be in accordance with 
the law.
    Senator Murphy. Do you think it is sufficient to rely on a 
Saudi investigation and take their findings at face value, or 
do you think we have an independent obligation to do our own 
fact finding?
    Ambassador Hale. Again, I do not know the ins and outs of 
what our obligations are in terms of the law, but I certainly 
believe that we have to come to our own conclusions about the 
facts. That I certainly agree with.
    Senator Murphy. Turning to your service in the Middle East, 
you served in two posts, countries that took on an enormous 
burden in the aftermath of the Syrian civil war, taking 
refugees both formally and informally to Jordan and Lebanon. 
Can you speak to the importance of a global response to the 
continued refugee flows out of Syria? Obviously, many of us 
have grave concerns about this administration's decision to 
shut down the United States' willingness to bring refugees, 
which simply puts more burden onto already challenged regimes 
in the region. What did you see firsthand with respect to the 
ability of countries in that region to continue to handle 
refugee flows?
    Ambassador Hale. They have reached a saturation point, 
particularly Lebanon. Lebanon has a weak state to begin with, 
so its capacity to deal with these kinds of crises is very, 
very limited. They are dependent upon the U.N. agencies that 
are able to respond to this. But the level of funding that 
those agencies are able to devote is not sufficient to the 
need, and that, of course, pushes people into desperate 
situations, which is not to be desired.
    I worry particularly about the long-term effect of 
recruitment of extremists in these camps, for obvious reasons, 
young people who are not in school and not earning incomes.
    Jordan has a little more resilience to it. It is a stronger 
state. It has been terribly important that international donors 
and partners step up to the plate and be generous in dealing 
with this because the problem will not go away on its own.
    Ultimately, a political solution in Syria, though, is the 
answer.
    Senator Murphy. What does it say about our seriousness 
about solving the problems inside Syria and around Syria when 
the United States now effectively refuses to take Syrian 
refugees into our country?
    Ambassador Hale. Well, I think that we have a longstanding 
commitment to bring a certain number of refugees into the 
country, including Syrians, and I understand that will 
continue. I think we also need to focus, though, on the 
domestic political problem inside Syria, and resolving that 
will bring back the flows of these millions of refugees who 
will not find a home in Europe and will not find a home in 
America. That has to be our primary focus at the State 
Department.
    Senator Murphy. Great. Again, thank you for your 
willingness to take up this very important post.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez stepped out for a moment. I want to check 
with him to see if he has additional questions before we move 
on.
    (Pause.)
    Senator Menendez. Thank you, Mr. Chairman.
    Very briefly, Ambassador, let me ask you two other 
questions. One of the Chairman's hallmark legacies here is his 
work on human trafficking, which I have joined him in, and that 
leads to the veracity of the TIP Report, which you and I 
discussed. If confirmed, how will you work to ensure the 
credibility of the TIP Report?
    Ambassador Hale. I believe, based on experience in my three 
previous assignments as Ambassador, in the objectivity and 
value of that report, and the value of it is based on its 
objectivity. Foreign governments need to know that this is an 
objective standard and that it is inescapable to face the 
consequences of not being able to meet these high standards. It 
is a very effective tool in that regard.
    Senator Menendez. And how are you going to balance the 
large footprint of the regional bureaus with the much less 
well-resourced and weaker JTIP offices to ensure that the TIP 
offices' recommendations are given serious consideration?
    Ambassador Hale. I will communicate from Day 1 to the 
regional bureaus that this is a matter that requires objective 
assessment, and then if there are split decisions, split memos 
that come up for decision where there are differences of 
opinion between the regional bureau and JTIP, I will be part of 
the effort to resolve those differences, and I will do it in 
the spirit which I am describing today.
    Senator Menendez. Let me move very quickly to a question of 
democracy and human rights which has been one of the hallmarks 
of what I have done for 26 years in the House and the Senate as 
part of U.S. foreign diplomacy. Do you believe that promoting 
democracy and human rights abroad is in the U.S. national 
interest?
    Ambassador Hale. I do.
    Senator Menendez. And how will you, within the context of 
the P process, make sure that our democracy and human rights 
advocacy as part of our foreign diplomacy is being effectuated?
    Ambassador Hale. Again, Day 1, in talking to the staff of 
the bureaus, I will include human rights as one of our core 
responsibilities to promote overseas, and then going forward to 
make sure that it is an integrated core element of our 
strategies in those key countries where human rights are at 
risk.
    Senator Menendez. All right. I have one or two other 
questions that I am going to submit for the record, but it is 
rare that I can say at this part in a hearing that I look 
forward to supporting your nomination.
    I thank you, Mr. Chairman, for giving me the few minutes.
    The Chairman. Ambassador, you have no idea how rare that 
is. I am happy for you.
    (Laughter.)
    The Chairman. I did make an allusion. I usually wait until 
the end to see if questions were not asked. I made a statement 
in my opening comment about using some type of methodology to 
determine how we allocate in a country, for instance, various 
embassies and consulates, how they are set up, how they are 
staffed. My sense is that you and my staff had a long 
conversation about that, but I wonder if you might address that 
since you have not yet today.
    Ambassador Hale. Well, Mr. Chairman, I really appreciate 
the question and your interest in that because that is 
something I have also thought about over my career.
    We could introduce more rigor. There have been initiatives 
to try to do so over the years. Perhaps it is better now than 
it was decades ago. Much is left to our chiefs of mission. So I 
think your job in confirming ambassadors and making sure that 
they understand the priority that you just laid out is very 
important.
    But I would like to work very much with your staff and with 
this committee to introduce that kind of transparency, as well 
as rigor in assessment of our resources.
    The Chairman. And I would like to bring up one other point 
the Ranking Member alluded to. There has been an effort--this 
committee unanimously, and then the Senate and House both, have 
supported an effort to end modern slavery around the world. It 
is an effort to create leverage. It is an effort to bring 
governments, individuals around the world together to try to 
end modern slavery. We have 27 million people, at a minimum 
today, that live in slavery.
    So we have been able to put together and pass legislation 
that builds upon matching funds so that we are able to leverage 
those efforts. Last year the U.S. Government put $25 million 
into this fund. That was matched by the United Kingdom. They 
actually put in 20,000 Euros, and I think that was actually 
more than ours. There is an effort again this year to do the 
same. There are individuals around the world that are looking 
to come together with us to create a $1.5 billion fund, mostly 
not U.S. dollars. Over a seven-year period it is hoped that 
U.S. dollars will be about $250 million.
    So it would be leveraged hugely, and it is very difficult 
to do that, as you know, inside government, so you have to do 
that outside. Otherwise, other governments will not come 
together with us, nor individuals.
    What happens when these types of efforts take place? There 
is an RFP effort, and obviously there are people in our 
community here in Washington and other places that participate 
sometimes in trying to garner State Department funds. I think 
that is perfectly appropriate. I would just say, though, that 
keeping this together so that it is leveraged on a three-to-one 
basis, actually on a seven-to-one basis by other people, is 
very important. Otherwise, we will never be successful.
    This effort is to really use best practices to help people 
all around the world deal with this issue, and if we start 
watering it down and have multiple minor entities underway with 
this, then in essence we are going to be very unsuccessful.
    I just wanted you to be aware of this. I know that this is 
dealt with by other entities within the State Department, but 
it is something that is pretty rare around here. This committee 
operates in a very bipartisan way. This was uniformly 
supported, and I hope that you will be aware of that, and also 
constantly as you meet with people bring up the concerns that 
all of us have here relative to trafficking persons and the 
fact that we have more people living in slavery today around 
the world than at any time in the world's history.
    Ambassador Hale. Well, you make a very compelling case, Mr. 
Chairman, and if confirmed I look forward to working with you 
and others to do exactly what you described.
    The Chairman. Well, thank you. I know we met yesterday and 
our staff has met with you extensively, and I want to second 
the Ranking Member's comments. I have had differences with the 
administration on numbers of issues, but I will say the people 
that are coming into leadership positions by Secretary Pompeo 
to me have been almost uniformly outstanding, and it is really 
heartwarming to see the kind of talent and professionalism that 
is being brought into the State Department from the outside.
    But it is even more heartwarming in this case to see 
someone from the inside who has been there so many years 
ascending to this position, and I hope you have a very speedy 
confirmation. Thank you for being here. We hope to mark you up 
and send you out very soon. Thank you for your service.
    And with that, questions will be open until close of 
business tomorrow. I know you know that well, and I am sure you 
are going to answer those questions promptly, and we look 
forward to moving you along.
    The meeting is adjourned.


    [Whereupon, at 10:55 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
                 Hon. David Hale by Senator Bob Corker

    Question 1. The President's emphasis in his South Asia strategy 
last August was on a strong regional and broader diplomatic effort 
alongside the renewed force and authorities commitments in Afghanistan. 
Little has emerged on that critical diplomatic effort in consolidating 
international pressure for resolution of the Afghan conflict to date. 
As a foundation is laid for negotiations on a political resolution 
internally within the Afghan political environment, critical external 
diplomacy among difficult neighbors, and increasingly troubling efforts 
of states such as Russia and Iran, does the situation warrant State's 
reconsideration of providing a dedicated diplomat to enable important 
international diplomacy to help further the President's strategy and 
resolve the high cost of the Afghan conflict sooner?

    Answer. As the nation's most senior diplomat, Secretary Pompeo has 
engaged numerous counterparts in a successful effort to bolster support 
for Afghan peace. Under his leadership, the Senior Bureau Official for 
the South and Central Asia Bureau Ambassador Alice Wells is focused on 
encouraging direct negotiations between the Afghan Government and the 
Taliban to achieve a political settlement to end the conflict in 
Afghanistan. She has a dedicated team that focuses exclusively on 
initiating and supporting a peace process and coordinates with other 
regional and functional experts across the Department. Because of her 
broader responsibilities relating to other countries in the region, she 
is well positioned to ensure that U.S. engagement in South and Central 
Asia is both coherent and synchronized among decision-makers in 
Washington. The Secretary continues to evaluate the best structure for 
advancing a political settlement in Afghanistan and we are committed to 
consulting Congress.

    Question 2 If not, why not?

    Answer. As noted in the answer to your first question, the Senior 
Bureau Official for the South and Central Asia Bureau Ambassador Alice 
Wells is focused on encouraging direct negotiations between the Afghan 
Government and the Taliban to achieve a political settlement to end the 
conflict in Afghanistan. With a dedicated team that focuses exclusively 
on initiating and supporting a peace process and coordinating with 
other regional and functional experts across the Department, she is 
well positioned to ensure that U.S. engagement in South and Central 
Asia is both coherent and synchronized among decision-makers in 
Washington. Both her efforts, and those of the Secretary, have 
bolstered strong international support for Afghan peace.

    Question 3. Pakistan voters just provided long-time political 
aspirant and former cricket star Imran Khan the mandate to form a 
government. As Ambassador in Islamabad as Khan consolidated his drive 
to power, what priorities do you expect from this new political 
leadership and what if any opportunity exists to alter the frustrating 
status quo as it relates to improving cooperation from Islamabad and 
Rawalpindi?

    Answer. While the new government is only in its early stages of 
formation, Imran Khan has publically emphasized his interest in 
pursuing Pakistan's economic development, tackling corruption, and 
building constructive relations with countries in the region, as well 
as the United States. We share this interest. We intend to make a 
concerted effort to engage the new leadership on all aspects of our 
relationship. Nevertheless, like with the previous government and the 
military, we will be clear and consistent that we will not continue 
with business as usual as long as Pakistan does not address our 
concerns about its destabilizing policies, particularly its failure to 
curtail externally focused terrorist groups.

    Question 4. Given Khan's past harsh statements dismissive of U.S. 
interests and efforts, how will Pakistan policy change if at all 
relative to Afghanistan?

    Answer. While Imran Khan has made some concerning statements in the 
context of political campaigns, he has also expressed his interest in a 
mutually beneficial relationship, especially since the elections, and I 
am hopeful that we will be able to work with the new government toward 
that goal. We have been consistent, however, that for this to happen 
Pakistan must take decisive action against all militant groups based in 
Pakistan and play a constructive role to facilitate the Afghan peace 
process. We will continue to reinforce this message with the new 
government.

    Question 5. What further should we emphasize as it relates to U.S. 
-Pakistan relations?

    Answer. The President's South Asia strategy is clear: Pakistan must 
play a more constructive role in the reconciliation process by helping 
bring the Taliban to the negotiating table while also ending all 
support for terrorist proxies operating against Pakistan's neighbors. 
On the second element, we have urged Pakistan to make a concerted 
effort at improving bilateral relations with its neighbor Afghanistan, 
with some impact. More broadly, we emphasize that Pakistan itself 
stands to benefit by changing its approach in the region. Taking steps 
like ending the use of its territory as sanctuary by terrorist groups, 
actively supporting peace in Afghanistan, improving relations and 
increasing trade with its neighbors (not Iran), and investing in its 
own population would have a profound impact on its own international 
?standing, improve regional stability and encourage more business and 
investment.

    Question 6. The administration has established a hard line with 
Pakistan which seems to be a different, if no more effective, approach 
to improving Pakistani cooperation. What if any positive influence, 
such as trade, has Pakistan sought or would you or the administration 
consider?

    Answer. Under the President's clear and comprehensive South Asia 
strategy, the United States uses multiple approaches to encourage 
Pakistan to play a more constructive role in the region. While we 
cooperate with Pakistan by targeting terrorist groups throughout the 
region that seek to attack both Pakistan and the United States, we also 
make it plain to Pakistan publicly and privately that use of proxy 
groups is unacceptable and have brought substantial pressure to bear to 
press Pakistan to comply with our demands, including suspending all 
military assistance. We have the same message on proxy groups for all 
countries in the region. The United States continues to seek a more 
productive relationship with Pakistan, but this is not business as 
usual as long as Pakistan does not complete the necessary actions that 
we seek. Nonetheless, we continue to work with Pakistan to build strong 
bilateral commercial and people-to-people ties; 2017 was a record year 
for trade between our countries, and both the U.S. and Pakistan 
contribute robustly in sponsoring the Fulbright program--the largest 
U.S. -funded program in the world.

    Question 7. Africa has become less of a priority under the current 
administration though persistent insecurity and humanitarian and 
governance crises will require even greater U.S. attention if neglected 
for long. Development is a distant prospect for regions awash in 
weapons, terrorists and militias, and corrupt rulers. Mis-governance, 
neglect, and opportunistic terrorism are primary drivers for the 
magnitude of death, displacement, and insecurity across several regions 
of the continent. Although economics is a key consideration, the most 
devastating displacement of Africans has persisted in mis-governed 
regions of Nigeria and the Lake Chad Basin, Mali and the Sahel, the 
Horn of Africa, the Sudans and the Democratic Republic of Congo. These 
crises areas cost billions of dollars over many years in order to pay 
for significant diplomatic, security, and humanitarian assistance while 
resolving little of the underlying drivers such as massive state 
corruption. There is an imperative to collaborate to reverse these 
trends and share the burden with other states investing in a stable and 
sustainable future for Africa. Massive crises persist for extended 
periods of time in sub-Saharan Africa as new ones continue to emerge, 
each of which has incalculable human costs and represents a threat to 
United States interests. These crises areas cost billions of dollars 
over many years in order to pay for significant security and 
humanitarian assistance while resolving little of the underlying 
drivers such as massive state corruption. There is an imperative to 
collaborate to reverse these trends and share the burden with other 
states investing in a stable and sustainable future for Africa. Again, 
diplomacy is an imperative in working to identify ways to prevent and 
diminish the length of these crises. What priority do you place on 
elevating the diplomatic effort and do you assess its use as capable of 
diminishing other persistent high costs?

    Answer. Diplomatic engagement and collaboration with key partners 
in the region are critical to responding to these tremendous 
challenges, addressing underlying drivers such as corruption, and 
reducing the overall cost to the U.S. taxpayer. In addition to ongoing 
engagement with our African partners, the administration has regular 
discussions with like-minded allies, including the EU, France, and the 
UK, to coordinate diplomatic engagement and assistance efforts. If 
confirmed, I will continue to engage our partners to advance a 
coordinated approach to addressing underlying challenges as well as 
responding to immediate needs.

    Question 8. What priority do you place on addressing the underlying 
drivers such as governance and corruption and what would you recommend 
by way of policy and resources to address them?

    Answer. If confirmed, I am committed to addressing the root causes 
of instability in sub-Saharan Africa through bilateral and regional 
programs, as well as cooperating in multilateral fora. I understand the 
critical need to address democratic deficiencies that contribute to 
transnational threats in order to help states and communities foster 
legitimate, inclusive, and transparent political systems. This includes 
helping to build transparent, accountable institutions; empowering 
civil society, the private sector, and independent media; and fostering 
democratic governance, the rule of law, anti-corruption efforts, and 
respect for human rights.

    Question 9. Our important regional ally, Ethiopia, through its 
dynamic and young new leader Prime Minister Abiy, has shown a 
fundamental shift in its approach to internal and external tensions 
since he came to power. Those changes put him at greater risk from the 
old order but he has effectively reinforced his standing with much 
needed international support. If he is successful, the changes and 
stabilizing effect in the region would be significant to U.S. 
interests, but many others are competing to do the same. How will you 
further sustain the fundamental reforms emerging in Ethiopia and the 
region?

    Answer. If confirmed, I will ensure that U.S. policy continues to 
support and encourage the welcome reform agenda of Prime Minister Abiy 
broadly across the board. Part of this effort will require sustaining 
our commitment to the U.S. --Ethiopia Working Group on Democracy, 
Governance, and Human Rights. The dialogue facilitated by this Working 
Group is an important part of our government's ongoing engagement with 
Ethiopia and the region writ large. If confirmed, I will work to 
sustain our longstanding efforts to deepen and solidify Ethiopia's 
nascent reforms. I will also ensure that our efforts in the region 
remain aligned with and reinforce Ethiopia's commitment to work 
cooperatively with its neighbors.

    Question 10. How will you prioritize U.S. interests in the 
competition for relevance with the very active and aggressive efforts 
being made by China, Russia, and the Gulf countries to prioritize their 
own interests in the region?

    Answer. The United States closely monitors other countries' 
engagement in Africa and their alignment with U.S. strategic 
priorities. If confirmed, I will work with our embassies across Africa 
and other regions to advocate for U.S. priorities, including working 
with African partners to promote peace and security, increase 
prosperity through economic growth, trade and investment, strengthen 
democracy, human rights and good governance, and advance country-led 
development. I will support efforts to combat corruption and ensure a 
level playing field for the private sector that supports both American 
companies and Africa's continued economic growth.

    Question 11. How can the U.S. further its goals for stability and 
sustainable development through good governance in such environments?

    Answer. Countries around the globe can play a role as a source of 
capital and knowledge for African development, but they must apply the 
highest international standards of openness, inclusivity, transparency, 
and governance. Combating corruption and ensuring a level playing field 
for the private sector supports both American companies and Africa's 
continued economic growth. Building transparent, accountable security 
institutions is also an important U.S. objective. If confirmed, I will 
engage global partners on their role in Africa and work hard to promote 
peace, security and encourage U.S. trade and investment on the 
continent.

    Question 12. The continent of Africa is often somewhat lower on the 
national security priority list but often draws critical focus when 
catastrophes such as genocide, terrorism, or global health crises 
arise. What role does the foreign and civil service at State, USAID, 
MCC and others, play in our national security strategy?

    Answer. The State Department, USAID, the Department of Defense, 
MCC, and several other U.S.agencies contribute vital expertise to a 
whole-of-government approach that supports the capacities of African 
Governments and regional organizations to prevent and mitigate drivers 
of violent extremism and address immediate terrorism threats. U.S. 
support for more capable and professional security forces is vital to 
bolster stabilization and respond to natural disasters on the continent 
and complements efforts to strengthen democratic institutions, 
stimulate economic growth, trade and investment; and promote 
development, health initiatives, education, and economic opportunity.

    Question 13. How important are personnel to most effective and 
efficient operations?

    Answer. The success or failure of the Department in achieving its 
global objectives is linked directly to the caliber, retention, and 
motivation of our workforce. If confirmed, I will seek to achieve our 
organizational goals through promoting the Department's leadership 
principles and the continual development of our employees, as they are 
the Department's greatest resource.

    Question 14. How will you work with Congress to ensure the 
resources and personnel are appropriate to our national security 
interests?

    Answer. I commit, if confirmed, to work, in coordination with the 
Secretary, to advocate for the personnel and budget resources necessary 
to advance our important work at home and abroad.

    Question 15. How do you envision the State Department informing 
inter-agency focus on national security priorities?

    Answer. The State Department plays an essential and unique role in 
the national security of the United States. Embassy personnel deployed 
throughout the world provide real time analysis of opportunities and 
threats, and foster relationships with individuals from throughout a 
society. If confirmed, I will insist that these insights inform the 
inter-agency focus on national security priorities and that diplomacy 
and foreign assistance are deployed as viable tools for meeting 
national security objectives.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Hon. David Hale by Senator Robert Menendez

Rescission
    Question 1. We understand the administration is contemplating 
sending a rescission package to the Hill in an effort to avoid 
obligating billions of dollars of appropriated economic support and 
development assistance funds. This is highly objectionable for several 
reasons, including in light of the timing so close to the end of the 
fiscal year that it appears to be an ``end run'' around the Impoundment 
Control Act of 1974. Please provide the committee with an indication of 
what State Department funds are anticipated to be included in any 
rescission package, the process through which these funds will be 
chosen.

    Answer. At this time, no formal rescission proposal has been 
submitted to Congress. I do not have any details to provide at this 
time. If confirmed, I will work with the Secretary to review any 
rescissions proposed by the Office of Management and Budget and work to 
ensure the Department has the resources it needs to fulfill its 
mission.

    Question 2. On August 5, 2018, President Trump tweeted that the 
June 2016 meeting his son, son-in-law, and campaign manager held with a 
Russian lawyer affiliated with the Russian Government was ``to get 
information on an opponent'' to conspire, in other words, with a 
hostile foreign government for campaign purposes. The President's 
entire national security establishment--including his own politically 
appointed heads, agree that Russia meddled in the 2016 election and 
continues to pose an ongoing threat to American democracy and 
international stability. The President has also said, on numerous 
occasions, that the Mueller investigation--which has uncovered serious 
crimes and resulted in numerous indictments and plea deals--is a 
``witch hunt,'' and that questions about Russian interference in our 
elections are a ``Russian hoax--it's a hoax, OK?.'' Do you believe the 
intelligence community's assessment that Russia interfered in the 2016 
election?

    Answer. Russia undoubtedly attempted to influence our 2016 
elections. Their objective was to erode faith in U.S. democratic 
institutions, sow doubt about the integrity of our electoral process, 
and undermine confidence in the institutions of the U.S. Government. 
Confidence in the integrity of our election process is the bedrock of 
our democracy. If confirmed, I will continue to press Russian officials 
against further intrusion in the democratic processes of the United 
States and those of our Allies. I will also continue to work with our 
partners by sharing information and, where appropriate, providing 
assistance to strengthen their cybersecurity capabilities, and to 
continue implementation of the Countering America's Adversaries Through 
Sanctions Act to respond to and deter Russian malign activities 
directed at the United States, our Allies and partners.

    Question 3. Do you believe that Russia continues to attempt to 
undermine American democracy?

    Answer. Russia has shown through its aggressive actions that it 
rejects the post-Cold War order and seeks to undermine stability, 
democracy, and core Western institutions. Russia's ongoing military 
modernization program, nuclear and cyber capabilities, invasions of 
Ukraine and Georgia, and willingness to use hybrid threats and tools 
against the United States and our allies and partners are clear threats 
to our national security. We must be clear-eyed about Russia's 
transgressions, frank in our dialogue with Russia, and resolute in 
raising the costs of their behavior.

    Question 4. Do you believe the State Department and the rest of the 
national security apparatus of the United States must take steps to 
protect Americans and the United States against Russian aggression?

    Answer. Safeguarding the United States and our allies and partners 
from Russian malign influence campaigns is a core component of the 
administration's Russia strategy, U.S. diplomatic engagement with 
allies and partners, and U.S. foreign assistance. The Department works 
across the interagency, as well as with allies and partners, to deter 
and defend against Russian malign activity both at home and abroad.

    Question 5. Russia's malign activity targeting this country and its 
allies warrants a serious response. This administration has proven 
itself unable or unwilling to do what is necessary. Congress already 
stepped in on one occasion with CAATSA, and Senator Graham and I 
recently introduced new Russia sanctions legislation. Do you commit to 
working within State and the interagency for full implementation and 
enforcement of CAATSA?

    Answer. If confirmed, I will commit to working within State and the 
interagency to continue the comprehensive implementation of CAATSA. 
Since January 2017, the U.S. Government has sanctioned 217 Russian-
related individuals and entities for their involvement in Russian 
malign activities; 136 of these designations were done under sanctions 
authorities codified by CAATSA. In addition, the threat of sanctions 
has prompted other states to abandon billions of dollars in planned or 
announced arms deals with Russia, imposing additional financial costs 
on the Russian Government. As a result, Russia has fewer resources with 
which to finance its influence campaigns.

    Question 6. What is your view of the best way to further increase 
sanctions pressure on Russia?

    Answer. Sanctions are a powerful foreign policy tool, and are most 
impactful when used in coordination with allies and partners to 
maximize their effectiveness. Transatlantic unity is the cornerstone of 
our sanctions against Russia; providing the State Department with 
flexibility in implementation allows us to engage with allies, maintain 
unity, and maximize sanctions pressure on Russia.

    Question 7. How else is the administration pressuring Russia and 
what more would you recommend?

    Answer. The United States utilizes a whole-of-government approach 
that combines diplomatic, foreign assistance, intelligence, and law 
enforcement lines of effort to deter and defend against Russian malign 
activities. If confirmed, I will communicate to the Russian Government 
when its behavior is unacceptable, work with our interagency partners 
to impose costs in response, and build international coalitions to 
actively deter malign Russian activities.

    Question 8. Will you lead an effort in the inter-agency on 
coordination on Russian policy, similar to what was done under 
Secretary Shannon?

    Answer. If confirmed, I will work within existing interagency and 
international groupings and build other coalitions as necessary to 
mitigate the Russian threat. I will also advocate the administration's 
policies that impose costs on Russia for its malign activities and 
dissuade Moscow from further intrusions into the democratic processes 
of the United States.

    Question 9. Under what circumstances would you recommend that the 
U.S. Ambassador to Russia be recalled? Would Russian interference in 
the 2018 election merit a downgrade in our diplomatic relations?

    Answer. The Department has made it clear to the Russian Government 
that any effort to interfere in the 2018 midterm elections will not be 
tolerated and will be met with severe consequences. If confirmed, I 
will work within the interagency to explore all available options to 
respond to attempted Russian election interference.

    Question 10. How can the U.S. increase pressure on Russia through 
international bodies like the U.N.?

    Answer. The Department will continue to work closely with allies 
and partners to counter Russian aggression, including working through 
international bodies like the U.N. For instance, we continue to believe 
that a U.N.-mandated international security force in eastern Ukraine--
one that respects Ukraine's sovereignty and provides a pathway to 
restoring Ukrainian territorial integrity within its internationally 
recognized borders--is worth exploring as a means of protecting all 
Ukrainian citizens regardless of language, ethnicity, or religion. We 
will also continue to push Russia to fully implement all UNSC 
resolutions, including those on DPRK which are important for ongoing 
efforts to denuclearize the DPRK.

    Question 11. How would you assess U.S. coordination with European 
allies in countering malign influence?

    Answer. The U.S. Government is working closely with allies and 
partners to deter and defend against Russian malign activities. As part 
of those efforts, the Department is targeting U.S. foreign assistance 
to increase the resilience of U.S. partners to resist and counter 
Russian pressure; working with Allies and partners to share information 
and exchange best practices, including through multilateral Centers of 
Excellence; providing concrete support to partner countries in response 
to specific threats; and enhancing partner capacity to mitigate cyber 
vulnerabilities and respond to threats through technical assistance and 
bilateral and multilateral diplomatic engagement.

    Question 12. How can we improve?

    Answer. If confirmed, I will work within the interagency and with 
European counterparts to further strengthen efforts to protect our 
security and interests in the face of Russian malign threats, 
conventional and hybrid.

    Question 13. Would you commit to sharing with this committee 
classified cable traffic on the outcomes of President Trump's meeting 
with Putin in Helsinki?

    Answer. If confirmed, I would make myself available to the 
committee to discuss follow up from the meeting in Helsinki in an 
appropriate setting.

    Question 14. Do you support efforts to bolster civil society and 
democratically-oriented political parties inside of Russia?

    Answer. The Department supports efforts to bolster civil society 
across the globe, as the development of strong democratic and civilian 
institutions of governance and a vibrant civil society is critical to 
long-term stability and prosperity. However, it is not the policy of 
the United States to endorse particular political candidates or parties 
in other countries.

    Question 15. Do you believe that the United States can address 
border security, migration, and drug trafficking without a productive 
partnership with Mexican authorities?

    Answer. Bilateral cooperation with Mexico is essential and, if 
confirmed, I will ensure the Department of State continues to work 
closely with Mexico on issues of border security, migration, 
counternarcotics, and prosperity. The United States' collaboration with 
Mexico to jointly disrupt transnational criminal organizations, combat 
the heroin and fentanyl epidemics, enhance border security, address 
irregular migration, and build Mexico's capacity to investigate and 
prosecute crime is critical to both our nations.

    Question 16. What, in your view, would be the impact on our 
national security should Mexico choose to withdraw from cooperating 
with the United States?

    Answer. The United States and Mexico are neighbors bound by strong 
ties and our cooperation is vital to the national security of both 
nations. If confirmed, I will ensure the Department of State continues 
robust engagement with Mexico on issues of security, migration, 
counternarcotics, and prosperity to strengthen our bilateral 
cooperation.

    Question 17. Do you believe the President's comments make it easier 
or more difficult to build a collaborative relationship?

    Answer. The United States enjoys excellent cooperation with Mexico 
on a broad range of political, security, migration, and economic 
issues. We expect that cooperation will continue. Mexico is an 
important partner in combatting irregular migration, narcotics 
trafficking, and transnational criminal organizations.

    Question 18. In your new role, how can you possibly try to recover 
so much lost ground with such an important partner?

    Answer. Bilateral cooperation with Mexico is essential and, if 
confirmed, I will ensure the Department of State continues to work 
closely with Mexico on issues of security, counternarcotics, and 
prosperity. The United States' collaboration with Mexico to jointly 
disrupt transnational criminal organizations, combat the heroin and 
fentanyl epidemics, enhance border security, increase fair and 
reciprocal trade, address irregular migration, and build Mexico's 
capacity to investigate and prosecute crime is critical to both our 
nations.
Mexico/Opioids
    Question 19. The Center for Disease Control reported that in 2016, 
more than 42,000 Americans lost their lives to opioids--more than 
20,000 of those deaths were related to fentanyl and more than 15,000 
from heroin. As you know, the majority of the illegal heroin in the 
U.S. originates from Mexico and much of illicit fentanyl in the U.S. 
transits through Mexico from China. Instead of expanding cooperation 
with Mexico to address the flow of lethal drugs that are concerning to 
all Americans, the President seems obsessed with shutting down our 
government over funding for his proposed border wall--which would be an 
ineffective waste of taxpayer dollars. Do you think the U.S. can 
address heroin and fentanyl trafficking without Mexico's cooperation?

    Answer. Mexico is a critically important partner on 
counternarcotics and disrupting transnational organized crime. The 
Department of State must work closely with Mexico to reduce the 
availability and trafficking of heroin, fentanyl, and other illicit 
drugs to the United States.

    Question 20. As part of our diplomatic relations with Mexico, how 
will you prioritize cooperation to address illicit heroin and fentanyl 
trafficking at a time when the President's actions make your work 
nearly impossible?

    Answer. It is critical that we dismantle transnational criminal 
organizations that profit from the illicit drug trade. If confirmed, I 
will ensure that the Department continues to engage with the Mexican 
Government bilaterally and through the North American Drug Dialogue 
with Mexico and Canada to prioritize efforts to combat heroin and 
fentanyl trafficking. This engagement complements efforts under the 
Merida Initiative to protect American lives by disrupting the networks 
that smuggle drugs, cash, and weapons across our shared border.
Venezuela
    Question 21. Venezuela is the greatest challenge in our hemisphere 
today and while I have supported the administration's efforts, 
including the use of targeted sanctions against Venezuelan officials, 
our policy has been largely reactive. A massive refugee crisis in 
Venezuela now threatens regional stability and more than 1. 2 million 
Venezuelans have fled their country in the last two years. A recent 
United Nations report stated that the rule of law in Venezuela is 
``virtually absent,'' as government security forces carry out 
unjustified killings without any apparent consequences. Additionally, 
while President Maduro won a sham election in May and while the U.S.and 
the international community rejected the results--there have been 
little consequences. Clearly, we desperately need a comprehensive 
strategy on Venezuela. If confirmed, what strategy would you recommend 
to address the Venezuelan crisis?

    Answer. The political and economic crises in Venezuela continue to 
deteriorate rapidly, causing a humanitarian crisis and outflow of 
Venezuelans at levels that threaten regional stability and U.S. 
interests. Responding to this crisis will take a whole of government 
approach, including close coordination with like-minded countries in 
the Western Hemisphere and beyond. If confirmed, I will work with 
interagency partners to continue to implement the administration's 
strategy, which addresses key issues related to the crisis through 
support to democratic actors, humanitarian assistance, diplomatic 
engagement, economic measures, contingency planning, and strategic 
communications.

    Question 22. If confirmed, do you commit to working with Congress 
on a comprehensive U.S. strategy to address the humanitarian, 
political, and economic crisis in Venezuela?

    Answer. Yes, if confirmed, I commit to working with Congress to 
advance a comprehensive U.S. strategy to address the humanitarian, 
political, and economic crisis in Venezuela.

    Question 23. Will you prioritize humanitarian and refugee issues 
alongside sanctions and the tools needed to address growing criminality 
in Venezuela?

    Answer. If confirmed, I will continue to support a U.S. Government 
humanitarian assistance response to the Venezuelan crisis and its 
impact on the region, including by working with the interagency and 
international community to coordinate assistance efforts both inside 
and outside of Venezuela. The Department is working through its Bureau 
of Population, Refugees, and Migration and through USAID to support 
international organizations--including UNHCR and the International 
Organization for Migration--to ensure a comprehensive international 
response. If confirmed, I will also ensure the Department continues to 
leverage all tools at our disposal to pressure the Maduro regime and 
address growing criminality in Venezuela.

    Question 24. What do you believe is the most effective way to 
facilitate about the restoration of democracy in Venezuela?

    Answer. International pressure, alongside support to democratic 
actors in Venezuela, is paramount to facilitating a restoration of 
democracy in Venezuela. The Maduro regime has shown how far it is 
willing to go to maintain power. It seeks international legitimacy and 
support for its actions. If confirmed, I will ensure the United States 
continues to coordinate with the international community to hold regime 
officials accountable for their actions, including supporting efforts 
at the Organization of American States, the United Nations, and through 
the Lima Group.

    Question 25. The Trump administration has announced an extension of 
the U.S. troop presence in Afghanistan as well as a willingness to sit 
with the Taliban. How do you think these decisions will impact the 
peace and reconciliation process in Afghanistan?

    Answer. President Trump's announcement of the South Asia strategy 
in 2017 highlighted our shift to a conditions-based troop presence in 
Afghanistan. This shift made clear that the Taliban could not simply 
wait out the United States in Afghanistan. Similarly, our support for 
the Afghanistan Government's pursuit of a negotiated settlement in 
Afghanistan was underscored in June by Secretary Pompeo's statement 
that the United States was prepared to support, facilitate, and 
participate in peace talks between the Afghan Government and the 
Taliban and that such talks would necessitate discussions about our 
troop presence there. These statements have made clear that the Taliban 
cannot win on the battlefield, but that the United States actively 
supports a negotiated settlement in Afghanistan, bolstering the peace 
and the reconciliation process.

    Question 26. Upon confirmation, do you anticipate playing a role in 
the reconciliation process?

    Answer. If confirmed, I will oversee the work of the Bureau of 
South and Central Asian Affairs, including its efforts to support 
Afghan reconciliation by bringing the Taliban into direct negotiations 
with the Afghan Government. Through my own diplomatic engagements, I 
would support the effort underway under the leadership of Senior Bureau 
Official Ambassador Alice Wells. She has a dedicated team that focuses 
exclusively on initiating and supporting a peace process and 
coordinates with other regional and functional experts across the 
Department.

    Question 27. The current administration is eroding support for 
democracy and human rights around the world. Abroad, the President 
routinely praises dictators and congratulates autocrats on winning 
rigged elections. The administration's budget request would decimate 
foreign assistance provided to support democracy and human rights in 
foreign countries. At home, the administration recently embarked on a 
policy of separating children from their parents with, apparently, no 
plan to reunite them, even when those parents sought asylum under U.S. 
and international law. How do you view the relationship between 
advancing democracy and human rights abroad, and the United States 
being seen as leading by example, in terms of its policies at home?

    Answer. The promotion of democracy and human rights is central to 
our national interests and an essential element of our foreign policy. 
No other nation is equipped with the same blend of power and principle. 
I am proud of the Department's work to promote and protect fundamental 
freedoms around the world. If confirmed, our democracy, human rights, 
and governance efforts will be a priority for me.

    Question 28. The National Security Strategy of the Trump 
administration (December 2017) states ``We will not remain silent in 
the face of evil.'' Will you be willing to be public and outspoken in 
condemning violations of international human rights and democratic 
norms?

    Answer. Yes. If confirmed, I commit to ensuring that United States 
foreign policy seeks to protect human rights and promote democratic 
norms. Promoting human rights advances the national security of the 
United States, as societies that respect human rights and the rule of 
law are more stable and make better allies.

    Question 29. Do you believe that public criticism of violations of 
human rights or democratic norms committed by foreign governments can 
advance the cause of human rights and should be a technique used by the 
United States in appropriate cases?

    Answer. Yes. Promoting human rights is in the best interests of the 
United States and calling out human rights violators is an important 
diplomatic tool.

    Question 30. What is the right balance for the United States when 
it comes to engaging or, if necessary, even partnering with deeply 
abusive governments?

    Answer. At times it is necessary to work with governments that 
abuse their citizens. But we should always avoid any implication that 
our working with them constitutes acquiescence in their abusive 
practices. We should use diplomatic tools to advance freedom, peace, 
and prosperity where governments abuse civil society, especially where 
we are compelled to work with such governments.

    Question 31. How would you recommend the Secretary of State 
approach such partnerships?

    Answer. The United States will evaluate and utilize the full scope 
of diplomatic tools and engagement when governments violate human 
rights. These include public and private dialogue and when appropriate, 
tools such as the Magnitsky Act, the Global Magnitsky Act, and the 
International Religious Freedom Act. These are powerful diplomatic 
instruments and it is important that the Department deploy them 
effectively and with discretion in encouraging partners to improve 
their human rights records.

    Question 32. In general, how do you believe the U.S. can strike the 
right balance between addressing national security and human rights 
concerns?

    Answer. I do not see the two objectives as in conflict with each 
other. Promoting democracy, human rights, and fundamental freedoms 
advances our national security. Our most valued, dependable, and 
effective partner governments and security forces around the world 
uphold democratic values, protect the human rights of their citizens 
and the civilians they protect, hold human rights violators accountable 
when necessary, and do not unduly restrict the fundamental freedoms of 
their people. I believe that we must continue to create and maintain 
strong security relationships with such partners through diplomacy, 
measured assistance, and frequent and ongoing cooperation.

    Question 33. Do you believe there are cases where political 
isolation or sanctions are appropriate, either based on a country's 
human rights abuses or other foreign policy concerns?

    Answer. Yes. The Department of State and interagency should use all 
available tools, including sanctions, the Magnitsky Act, the Global 
Magnitsky Act, and the International Religious Freedom Act. We must 
utilize these powerful instruments to full effect.
Accountability for Rohingya
    Question 34. As you are aware, the Burmese military has committed 
mass killings, rape, and arson against the Rohingya minority, creating 
a massive refugee crisis. A number of independent groups, as well as 
United Nations experts, determined that these activities amount to 
crimes against humanity. The United States has described them as ethnic 
cleansing and a soon to be released State Department report may go 
further. Hundreds of thousands remain displaced throughout the country 
because of the conflict and gross violations of human rights, and over 
700,000 refugees have fled to Bangladesh. If confirmed as Under 
Secretary, what steps will you take to ensure perpetrators are held 
accountable for the atrocities committed not just against the Rohingya 
but also against other ethnic minority groups in Burma, such as the 
Karen or the Kachin?

    Answer. If confirmed, I will work with likeminded countries and 
international organizations to press for humanitarian access and to 
seek justice for victims and accountability for members of the Burmese 
security forces and others responsible for atrocities and other human 
rights violations and abuses. I will also continue to press the Burmese 
Government to cooperate with an independent and credible investigation 
into these allegations of atrocities and abuses in Rakhine State and 
conflict areas of Burma to identify perpetrators, uncover patterns of 
abuses and violations, map incidents, and determine the sequence of 
events.

    Question 35. How do you believe the U.S. should be engaging on the 
question of accountability in multilateral fora, such as the United 
Nations?

    Answer. The United States works with likeminded countries and 
international organizations to promote justice for victims and 
accountability for members of the Burmese security forces and others 
responsible for atrocities and other human rights violations and 
abuses. The United States supported the work of the U.N. Fact Finding 
Mission, which is mandated to establish the facts and circumstances of 
alleged human rights violations by Burmese security forces across Burma 
and will present its findings in the coming weeks, as well as that of 
the U.N. Special Rapporteur for the Situation of Human Rights in Burma 
and the Secretary-General's Special Envoy for Burma. If confirmed, I 
will work with our international partners to identify and support 
available and appropriate steps at the U.N. Security Council and 
General Assembly in pursuit of accountability.

    Question 36. What are the appropriate avenues to pursue 
accountability for what Ambassador Nikki Haley has called a ``brutal, 
sustained campaign to cleanse the country of an ethnic minority.''

    Answer. The United States is pursuing accountability in Burma 
through a whole of government approach. For example, the State 
Department has supported efforts, including U.N. efforts, to 
investigate and document human rights violations and abuses in Burma, 
which will help to identify perpetrators, uncover patterns of abuses 
and violations, map incidents, and determine the sequence of events. If 
confirmed, I will work with international partners to identify and 
pursue all available and appropriate steps that can be taken 
domestically within the United States and at the U.N. Security Council 
and General Assembly to promote justice for victims and accountability 
for those responsible for these abuses in Burma.

    Question 37. The world is experiencing a refugee crisis larger than 
anything we have experienced since the end of World WWII. Many of our 
close allies host millions of refugees in camps, only a small 
percentage of which ultimately pass through the intense vetting 
required to be resettled in third countries. Last fiscal year, the 
Trump administration restricted the maximum number of refugees allowed 
into the United States to 45,000, the lowest since the program began in 
1980 under President Reagan. Admiral Mike Mullen, the former Chairman 
of the Joint Chiefs of Staff, has said that ``by welcoming refugees, 
the United States revitalizes its democracy and its economy, helps 
preserve or restore stability in volatile regions of the world, and 
builds respect. In slashing resettlement, the president is taking a 
recklessly narrow view of how best to put America first. Shutting out 
refugees would not only increase human suffering; it would also weaken 
the country and undermine its foreign policy.'' Do you agree with 
Chairman Mullen that by welcoming refugees, the United States leads by 
example, promotes its democracy and economy, and maintains stability in 
volatile regions of the world?

    Answer. I understand that the United States continues to operate 
one of the largest refugee resettlement programs in the world, and it 
is consistent with our foreign policy goals of providing resettlement 
opportunities while focusing on assisting refugees as close to home as 
possible. The United States is the single largest donor of 
international humanitarian assistance, last year delivering more than 
$8 billion in life-saving aid around the world. If confirmed, I will 
support the President's efforts to emphasize the importance of 
coordinated, effective, and efficient international responses, as well 
as the need for other governments, and other actors in the private 
sector, to step in to contribute to humanitarian efforts.

    Question 38. Do you believe there are foreign policy or national 
security considerations if there is a downward retreat on resettlement 
numbers?

    Answer. The U.S. Refugee Admissions Program is a reflection of our 
values and national security interests. The United States remains one 
of the largest resettlement countries in the world and the single 
largest donor of international humanitarian assistance. If confirmed, I 
look forward to participating in the process of determining the size 
and scope of our refugee resettlement program in FY 2019 and beyond, 
and our important role in providing critical humanitarian assistance to 
refugees in countries of first asylum.
    Question 39.  Ambassador Hale, I would like to ask you similar 
questions to those that I posed to Ambassador Nagy when he came before 
this committee for his confirmation hearing and to USAID Administrator 
Mark Green when he was here for his budget hearing. I am gravely 
concerned that the administration's approach to Africa is at best an 
afterthought, and at worst displays a lack of strategic thinking about 
how the U.S. should be approaching the continent, while other actors, 
such as Russia and China are engaged in ways inimical to ours. Last 
year the administration announced four strategic purposes in Africa: 
Advancing Peace and Security; Countering the Scourge of Terrorism; 
Increasing Economic Growth and Investment; Promoting Democracy and Good 
Governance. The approach that has been articulated is not that 
different an approach from the Obama policy, and I don't take issue so 
much with the purposes, but I would note problems with the 
administration's execution of its own approach. First, with regard to 
countering terrorism, I am not convinced we are making the right 
investments. The drivers and root causes of terrorism include political 
and economic marginalization, and recent research has pointed to human 
rights abuses by security forces as a major factor in radicalization. 
Military action alone will not stem the terrorist tide in Africa. 
However, while we are seeing action from the administration in the 
security space, there were deep cuts in the President's budget request 
for Fiscal Year 2019 for diplomacy and development. Do you believe that 
we should still emphasize the three D's--Defense, Diplomacy, and 
Development--in how we conduct international relations.

    Answer. I agree that addressing terrorism in Africa requires a 
comprehensive and balanced 3D approach. The State Department, USAID, 
the Department of Defense, and several other agencies have vital 
expertise and capabilities to support the capacities of African 
Governments, regional organizations, and non-governmental organizations 
to prevent and mitigate drivers of violent extremism and address 
immediate terrorist threats. U.S. efforts do not focus solely on the 
security elements. Support for more capable and professional security 
services is vital, but must be a complement to efforts to strengthen 
democratic institutions; stimulate economic growth, trade, and 
investment; uphold human rights and the rule of law; and promote 
development.

    Question 40. In your view, is the administration correctly 
balancing the three D's in Africa, and if not, how can we hope to be 
effective in countering terrorism and extremism, or in furthering any 
other administration priority?

    Answer. The State Department, USAID, the Department of Defense, and 
several other agencies contribute vital expertise and capabilities to a 
3D approach that supports the capacities of African Governments, 
regional organizations, and nongovernmental organizations to prevent 
and mitigate drivers of violent extremism and address immediate 
terrorism threats. Support for more capable and professional security 
services is vital, but must complement efforts to strengthen democratic 
institutions; stimulate economic growth, trade, and investment; and 
promote development, education, and economic opportunity.

    Question 41. Given what research has shown about radicalization 
occurring due to abuses by security forces, how should we be weighing 
whether and when to sell arms to countries in Africa whose militaries 
have engaged in well document human rights abuses, even in the face of 
significant terrorist threats? How should that affect how and when we 
start and stop security assistance programs with alleged abusers?

    Answer. I am firmly committed to supporting African-led efforts to 
defeat terrorism and improve security for all of their citizens. This 
includes promoting greater respect for human rights, accountability, 
fundamental freedoms, and the rule of law as indispensable elements of 
national counterterrorism strategies. Recipients of U.S. security 
sector assistance are thoroughly vetted in accordance with the Leahy 
law to prevent the United States from providing assistance to security 
forces with credible allegations of gross human rights violations. The 
United States monitors the performance of security services and halts 
or modifies security engagements in cases of credible allegations of 
human rights abuse or the failure of partners to credibly investigate 
and address violations.

    Question 42. Second, the administration has talked a good game 
about promoting Democracy and Governance, in Africa, but is not 
providing adequate resources. The amount available for DG for Africa in 
2017 was approximately $330 million. The administration's request for 
the past two fiscal years has been less than half that amount. 
Secretary Pompeo indicated in response to the question I asked about 
achieving stated democracy and governance policy goals with such a 
limited budget that we would rely ``on other nations to make greater 
contributions toward shared objectives, including advancing democracy 
worldwide.'' I asked Mark Green which nations were consulted about 
their contributions towards Democracy and Governance activities in 
advance of finalizing the Fiscal Year 2019 budget request; he indicated 
he didn't know. I agree with the notion of burden sharing with 
international partners, but I don't sense any coordinated effort to do 
so on this issue. Frankly, it sounds like the administration is engaged 
in buck-passing rhetoric. What is your position on the utility of 
investments in the Democracy and Governance sector? Can such 
investments realistically be outsourced to international partners? As I 
recall we are concerned about countries failing to meet their 2 percent 
commitment for contributions to NATO. If that's not happening, do we 
really expect them to devote more to D/G because we are pulling back? 
What's your plan, if confirmed, for garnering such contributions?

    Answer. I believe in the utility of investments in the democracy 
and governance sector. Democracy programs are critical for defending 
national security, fostering economic opportunities for the American 
people, and asserting U.S. leadership and influence. I also agree that 
other nations need to do more to advance democracy around the world. We 
share this objective with many of our allies and if confirmed, I will 
work to encourage our partners to do more.

    Question 43. Given your diplomatic experience, in your estimation, 
is it possible for us to truly promote and support democracy and 
governance by building strong institutions with such a drastic 
reduction? What is your intention in terms of advocating for democracy 
and governance funding for Africa and elsewhere for that matter?

    Answer. I believe democracy programs, including those that build 
strong institutions, are critical for defending national security, 
fostering economic opportunities for the American people, and asserting 
U.S. leadership and influence. I also agree that other nations need to 
do more to advance democracy around the world, including in Africa. We 
share this objective with many of our allies, and if confirmed, I will 
work to encourage our partners to do more.

    Question 44. The Gulf countries are influential actors in the Horn 
of Africa. The UAE, Saudi Arabia, and Turkey have increased their 
military presence along the coast of the Horn of Africa and analysts 
have expressed concern that the Gulf crisis may exacerbate regional 
tensions in the Horn. I asked both Secretary Pompeo and Ambassador Nagy 
as a part of their confirmation hearings about how the U.S. should 
respond. I have also written the administration about the need for an 
integrated strategy for the Sahel-Maghreb; the response from State 
Department did not address my concern about the need for such a 
strategy. If confirmed as Under Secretary, coordinating the relevant 
regional and functional bureaus on cross regional issues will be part 
of your responsibilities. If confirmed, will you commit to returning to 
the committee within a reasonable time period to brief staff on the 
status of the development of a coordinated diplomatic approach to both 
the Horn and the Sahel-Maghreb?

    Answer. I understand the Gulf States and Turkey are heavily engaged 
in and compete for political, security, and economic influence across 
the Horn of Africa. The State Department has stressed with our partners 
in the Gulf that any unilateral engagement that undermines Somalia's 
stability-including regional stability and ongoing reform efforts--is 
counterproductive. On the Sahel-Maghreb, the AF and NEA Bureaus meet on 
a quarterly basis at the Deputy Assistant Secretary-level to coordinate 
our strategy for addressing security challenges through the Trans-
Sahara Counterterrorism Partnership (TSCTP).
    If confirmed, I will regularly brief Congress on how the AF and NEA 
bureaus collaborate to achieve our foreign policy goals in these two 
important regions.

    Question 45. If confirmed will you commit to returning to the 
committee within a reasonable time period to brief staff on your 
understanding of the aims and goals of both Russia and China in Africa, 
and your plans to counteract Chinese and Russian actions and policies 
that might run counter to U.S. interests?

    Answer. If confirmed, I commit to being responsive to this 
committee's requests for information on this important issue. Countries 
around the globe can play a role as a source of capital and knowledge 
for African development, but they must apply the highest international 
standards of openness, inclusivity, transparency, and governance. If 
confirmed, I will continue to monitor China and Russia's involvement in 
Africa, and consider cooperation where our interests intersect, such as 
promoting peace and security, and work to mitigate and counter 
influences that run counter to U.S. interests. If confirmed, I will 
engage global partners on their role in Africa and work hard to promote 
peace and security and encourage U.S. trade and investment.
Indo-Pacific
    Question 46. If confirmed, how will you make sure that the Indo-
Pacific region remains a priority in our foreign policy, including 
receiving the resources needed to make any rhetorical strategy an 
actual reality, and balance it with other competing regional 
priorities?

    Answer. The administration has been clear that future U.S. security 
and prosperity will depend on maintaining a free and open Indo-Pacific 
that advances peace, security, and good governance while prioritizing 
the efficient use of taxpayer resources. To that end, we are taking a 
whole-of-government approach, in consultation with Congress, which 
leverages expertise across agencies, streamlines our approach to 
development finance, and directs foreign assistance to achieve the most 
efficient return on investment. At the recent Indo-Pacific Business 
Forum and ASEAN Regional Forum, the Secretary announced packages of 
foreign assistance, including the largest package of security 
assistance for the region in over a decade, that advance U.S. economic, 
governance, and security objectives, demonstrating our commitment to 
freedom, openness, and prosperity in the Indo-Pacific.
Alliances
    Question 47. Our alliances form the bedrock of our security and 
prosperity. Our NATO commitments, for example, are enshrined in Article 
V of the Washington Treaty--which our NATO allies invoked after we were 
attacked on September 11. We likewise have treaty commitments with 
Japan, the Republic of Korea, Australia, the Philippines and Thailand. 
These alliances are critical for maintaining peace and stability, 
deterring adversaries, and safeguarding our vital national security 
interests. Our allies represent some of our best and most stalwart 
friends, whose partnership has been critical in addressing a range of 
shared challenges. Yet repeatedly over the last eighteen months 
President Trump has suggested that he does not view our treaty 
obligations or mutual defense commitments as binding or indeed even as 
obligations or commitments at all, but rather as something 
transactional. What is your understanding of U.S. treaty alliance and 
mutual defense obligations and commitments?

    Answer. The United States' mutual defense treaties have been the 
bulwark of international peace and security for decades and remain so. 
The U.S. commitment to its mutual defense obligations under those 
treaties is rock solid and unwavering.

    Question 48. Does the president's rhetoric threaten to undermine 
the credibility of our treaty obligations?

    Answer. The United States' treaty alliances are ironclad. U.S. 
mutual defense treaties have been the bulwark of international peace 
and security for decades and remain so. The U.S. commitment to its 
mutual defense obligations under those treaties is rock solid and 
unwavering.

    Question 49. Does that erosion increase risk for U.S. allies and 
for the United States?

    Answer. The United States' treaty alliances are ironclad. U.S. 
mutual defense treaties have been the bulwark of international peace 
and security for decades and remain so. The U.S. commitment to its 
mutual defense obligations under those treaties is rock solid and 
unwavering.

    Question 50. Does the president's rhetoric and questioning of our 
alliances threaten to make cooperation with our allies more difficult 
and more challenging in forging partnerships necessary to tackle our 
shared global concerns?

    Answer. The United States' treaty alliances are ironclad. U.S. 
mutual defense treaties have been the bulwark of international peace 
and security for decades and remain so. The U.S. commitment to its 
mutual defense obligations under those treaties is rock solid and 
unwavering. I fully support the United States' commitment to NATO's 
collective defense and to our Allies, and would continue to do so, if 
confirmed.

    Question 51. In June, Secretary Pompeo said that ``LGBTI persons--
like all persons--must be free to enjoy their human rights and 
fundamental freedoms, including freedom of expression, peaceful 
assembly, and association, without fear of reprisal.'' Do you agree 
with the Secretary's past statements on the role of the USG in 
promoting the human rights of LGBTI people abroad?

    Answer. Yes. Throughout my career, I have advocated for governments 
to protect, respect, and uphold the dignity and fundamental freedoms of 
LGBTI persons, and if confirmed I will continue this advocacy. As the 
Universal Declaration of Human Rights states, all human beings are born 
free and equal in dignity and in rights. It is in our national interest 
to advance universal human rights.

    Question 52. How did you address LGBTI rights in your previous 
position as an ambassador?

    Answer. I believe that promoting human rights and defending the 
dignity of all persons is in the best interests of the United States. 
In both Pakistan and Lebanon, I personally met with LGBTI activists and 
developed programs to support their work in a quiet but meaningful way.
    In addition, if the Department is to reap the benefits of its 
diverse workforce, all employees must have opportunities to serve where 
their contributions will be valued and recognized. I have sought to 
foster an inclusive and diverse work environment in the selection of my 
own staff and have reached out actively to engage with all groups that 
comprise our Foreign and Civil Service, including our LGBTI employees.

    Question 53. The State Department notes on its website that it is 
committed to pursuing diplomacy that is inclusive and empowering of 
persons with disabilities and that the United States opposes 
discrimination against persons with disabilities everywhere and in all 
its forms. How will you contribute to the Department's mission to 
promote dignity and respect for persons with disabilities?

    Answer. I am firmly committed to defend the human rights and 
dignity of all people, including those with disabilities. If confirmed, 
I will work to ensure that disability issues are integrated into U.S. 
foreign policy, and to increase knowledge of disability rights among 
our personnel. I will support Department efforts to identify and 
address challenges that persons with disabilities face, and encourage 
foreign governments to do the same.

    Question 54. What would you do to ensure that disability issues are 
addressed globally?

    Answer. If confirmed, I will support efforts to identify and 
address challenges and barriers persons with disabilities face, 
encourage foreign governments to do the same, and integrate these 
issues across the work of the State Department.

    Question 55. Is it important for the U.S. to take a leadership role 
in advancing the rights of persons with disabilities at the agency and 
around the world?

    Answer. Yes. I understand the State Department has a comprehensive 
strategy to promote and protect the rights of persons with disabilities 
internationally. If confirmed, I will support efforts to identify and 
address challenges and barriers persons with disabilities face, 
encourage foreign governments to do the same, and integrate these 
issues across the work of the State Department.

    Question 56. Statelessness remains a critical human rights 
challenge. UNHCR estimates there may be 10 million stateless persons 
globally, a third of whom are children. Factors such as ethnic and 
religious discrimination, the emergence of new states, and gender 
discrimination in nationality laws contribute to the problem. The 
Global Action Plan to End Statelessness (2014-24) seeks to galvanize 
political will to resolve protracted situations of statelessness, 
prevent new cases from emerging, and better identify and protect 
stateless populations. Will you continue the U.S. commitment to prevent 
and resolve statelessness by providing humanitarian assistance and 
actively engaging in diplomacy on this issue, both in bilateral 
relations and in multilateral fora?

    Answer. Preventing and resolving statelessness is one of the 
priorities of the Department's Bureau of Population, Refugees, and 
Migration. I understand the United States remains a leader in global 
efforts to prevent and reduce statelessness, particularly through 
support to UNHCR's Global Campaign to End Statelessness by 2024, and by 
promoting women's equal right to nationality. If confirmed, I will 
continue to champion State Department efforts to end statelessness.
News Media as ``Enemies of the People''
    Question 57.  Freedom of the press is enshrined in the first 
amendment to the United States constitution. Freedom of expression, 
including through a free news media, is also enshrined in Article 19 of 
the Universal Declaration of Human Rights and International Covenant on 
Civil and Political Rights. Today, the President of the United States 
routinely labels members of the news media ``enemies of the people.'' 
This is a term generally associated with Soviet dictators Lenin and 
Stalin, who applied the term to many of those executed by the communist 
state. Variations on the term were also used in the 20th century by 
Hitler and Mao. Today, dictators around the world, from Prime Minister 
Hun Sen in Cambodia, to President Recep Tayyip Erdogan in Turkey, to 
President Abdel Fattah el-Sisi in Egypt use similar language to 
delegitimize independent media. In these countries, journalists are 
routinely harassed, imprisoned, and killed. What are your views on the 
role of the fourth estate in functioning democracies?

    Answer. A free press is an essential pillar of democracy. By 
promoting a free press, citizens are more informed, active, and engaged 
in political decision-making and can better hold governments 
accountable. If confirmed, I will work to advance press freedom, 
knowing that an informed citizenry is a fundamental requirement for 
free nations and people. I will also draw attention to the cases of 
journalists who have been imprisoned for their work and I will push for 
accountability for violence against or killings of journalists around 
the world.

    Question 58. Do you believe that journalists are ``enemies of the 
people?''

    Answer. Journalists play an important role in keeping citizens 
informed, prompting robust debate, and holding governments around the 
globe accountable. If confirmed, I will work to advance press freedom.

    Question 59. Will you be willing, if confirmed, to stand up for 
freedom of expression in your dealings with foreign governments who 
seek to delegitimize the news media as a means to repress members of 
their society?

    Answer. Yes. If confirmed, I will work to advance press freedom and 
where countries fall short to uphold their commitments to free 
expression and a free press I will push to call out those countries and 
encourage reforms.

    Question 60. How do you plan to respond to critiques from foreign 
governments, journalists, and activists that the U.S. president does 
not support the notion that a free press is an essential check on 
government power?

    Answer. As an open society, the President and political leaders on 
either side of the aisle encourage people to scrutinize all information 
they receive and come to informed judgments. Media in the United States 
remains fiercely independent with multiple points of view represented. 
If confirmed, I will work to advance press freedom, I will also draw 
attention to the cases of journalists who have been imprisoned around 
the world for their work, and I will push for accountability for 
violence against or killings of journalists around the world.
Democracy and Human Rights Foreign Assistance Funding
    Question 61. President Trump's National Security Strategy rightly 
recognizes that, ``Governments that respect the rights of their 
citizens remain the best vehicle for prosperity, human happiness, and 
peace. In contrast, governments that routinely abuse the rights of 
their citizens do not play constructive roles in the world.'' Despite 
this pronouncement, the President's budget requests in both FY 18 and 
FY 19 sought to impose cuts of 30 to 40 percent on funding for 
democracy and human rights. Lawmakers on both sides of the aisle have 
roundly rejected these proposals, and will continue to do so. Both the 
Senate and the House are recommending a modest funding increase in 
support of democracy and human rights programing for FY 19. If the 
Trump administration is serious about implementing its own National 
Security Strategy, it should be bolstering, not cutting, the democracy 
and human rights assistance budget. This type of funding helps build 
the exact types of societies and governments with which the 
administration claims it wants to partner. DRG funding helps support 
political and civic organizations, safeguard elections, promote citizen 
participation, strengthen openness and accountability in government, 
and protect journalists, human rights defenders, and women and 
children. And DRG programs are a fraction of the cost of deploying U.S. 
military forces to respond to contingencies all too often brought about 
by governments that abuse their people at home and destabilize the 
international system. As Under Secretary, will you commit to supporting 
a budget that invests in DRG funding, and will you recommend that the 
President abandon his proposed cuts to DRG funding in future budgets?

    Answer. I agree that democracy funding helps support political and 
civic organizations, safeguard elections, promote citizen 
participation, strengthen accountability in government, and protect 
journalists and human rights defenders. I understand the FY 2019 budget 
request upholds U.S. commitments to key partners and allies through 
strategic, selective investments that enable America to retain its 
position as a global leader, while relying on other nations to make 
greater contributions toward shared objectives, including advancing 
democracy worldwide. If confirmed, I will look to continue support for 
democracy programs.
Protecting Human Rights Defenders
    Question 62. Part of the worldwide attack on civil society is the 
murder every year of hundreds of peaceful human rights defenders, 
including in countries that are partners and allies of the United 
States. In 2013, in response to calls from activists across the world, 
the State Department produced advice for U.S. missions on how to engage 
with and protect human rights defenders. Feedback from activists 
suggests that the document has not been adequately promoted within the 
Department, with many State Department officials, even those working in 
DRL or as human rights officers in embassies, not knowing that it 
exists. Will you commit that you will raise the profile of the 
guidelines on supporting human rights defenders and ensure that they 
are fully implemented?

    Answer. Yes. If confirmed, I will both advance awareness of 
Department protocols for advocating for human rights defenders and will 
work to ensure that protection for human rights defenders continues to 
be incorporated into United States foreign policy. This includes the 
use of bilateral and multilateral diplomatic engagement, emergency 
assistance to civil society actors and human rights defenders, and visa 
restrictions and economic sanctions on those who would target human 
rights defenders, as appropriate.
Child Soldiers
    Question 63. One of the cruelest forms of human trafficking is 
child soldiering. The Child Soldiers Prevention Act was signed into law 
by President Bush in 2008 as part of the William Wilberforce 
Trafficking Victims Protection Reauthorization Act. But each year since 
then, presidents of both parties have used national interest waivers to 
preserve military aid to countries where there are credible allegations 
of child soldiering. As you know, child soldiers are not only exposed 
to the trauma of war, but are frequently victims of sexual abuse. Will 
you pledge to work to ensure that this legislation is fully and 
faithfully implemented?

    Answer. Yes. I pledge that I will never turn a blind eye to the 
plight of unlawful child soldiers or children who are sexually abused 
as members of security forces, nor fail to use any available means to 
help end these practices. If confirmed, I will work to ensure the Child 
Soldier Prevention Act is fully and faithfully implemented. Governments 
that use, condone, accept, or ignore unlawful child soldiers in their 
security forces must end all forms of unlawful child soldier use in 
order to be a dependable, effective, and durable security partner of 
the United States, including through the receipt of United States 
security force assistance.

    Question 64. One of the cruelest forms of human trafficking is 
child soldiering. The Child Soldiers Prevention Act was signed into law 
by President Bush in 2008 as part of the William Wilberforce 
Trafficking Victims Protection Reauthorization Act. But each year since 
then, presidents of both parties have used national interest waivers to 
preserve military aid to countries where there are credible allegations 
of child soldiering. As you know, child soldiers are not only exposed 
to the trauma of war, but are frequently victims of sexual abuse. Do 
you believe that the United States should grant waivers to countries 
that repeatedly ignore U.S. warnings and concerns about their use of 
child soldiers?

    Answer. Governments that use, condone, accept, or ignore unlawful 
child soldiers in their armed forces are not the type of governments 
that make effective or long-lasting partners, and the United States 
should not continue to support such regimes without expecting such 
behavior to cease. I believe that the United States should use all 
available diplomatic means, including the measured provision and 
withholding of assistance, to end the scourge of unlawful child 
soldiering.

    Question 65. One of the cruelest forms of human trafficking is 
child soldiering. The Child Soldiers Prevention Act was signed into law 
by President Bush in 2008 as part of the William Wilberforce 
Trafficking Victims Protection Reauthorization Act. But each year since 
then, presidents of both parties have used national interest waivers to 
preserve military aid to countries where there are credible allegations 
of child soldiering. As you know, child soldiers are not only exposed 
to the trauma of war, but are frequently victims of sexual abuse. What 
criteria would you advise the Secretary and the President to use in 
determining to grant waivers?

    Answer. The United States must make clear that we will not accept 
the unlawful use of child soldiers by any partner government or 
security force, and that we use all available diplomatic and assistance 
tools, to do so. Waivers should only be considered when the 
consequences of not granting a waiver would produce a worse outcome 
from the standpoint of the children we are seeking to protect--such as 
the conquest of their towns by violent extremists. If we find it 
necessary from that standpoint, and in accordance with all applicable 
statutory requirements, to grant waivers, we should at the same time 
fashion a strategy designed to convince the governments we are aiding 
to end the unlawful recruitment and use of child soldiers and establish 
benchmarks for their doing so.

    Question 66. One of the cruelest forms of human trafficking is 
child soldiering. The Child Soldiers Prevention Act was signed into law 
by President Bush in 2008 as part of the William Wilberforce 
Trafficking Victims Protection Reauthorization Act. But each year since 
then, presidents of both parties have used national interest waivers to 
preserve military aid to countries where there are credible allegations 
of child soldiering. As you know, child soldiers are not only exposed 
to the trauma of war, but are frequently victims of sexual abuse. What 
steps will you take to combat the scourge of child soldiers?

    Answer. If confirmed, I will use a range of diplomatic tools to 
combat the scourge of unlawful child soldiers. I will work to ensure 
the United States is clear in its message to governments that use, 
condone, accept, or ignore unlawful child soldiers in their armed 
forces: this is unacceptable, contrary to our values, and detrimental 
to our security partnerships. Governments that allow their security 
forces to commit human rights violations with impunity are not good 
partners, and, if confirmed, I will work to ensure such governments 
understand this and to assist them to the extent possible in bringing 
an end to their unlawful use of child soldiers.

    Question 67. One of the cruelest forms of human trafficking is 
child soldiering. The Child Soldiers Prevention Act was signed into law 
by President Bush in 2008 as part of the William Wilberforce 
Trafficking Victims Protection Reauthorization Act. But each year since 
then, presidents of both parties have used national interest waivers to 
preserve military aid to countries where there are credible allegations 
of child soldiering. As you know, child soldiers are not only exposed 
to the trauma of war, but are frequently victims of sexual abuse. In 
advising the Secretary and the President, how would you balance 
national interest with the rights of trafficked children and the moral 
obligation of the U.S. to ensure that it is doing all it can to end 
this abuse?

    Answer. It is in our national interest that partner governments and 
security forces cease the unlawful recruitment and use of child 
soldiers. The tools in the Act as well as other diplomatic and 
assistance tools available to us must be fashioned into an effective 
overall strategy to bring about this result. If confirmed, I will seek 
such an outcome in every country that still engages in this abuse.
Burma
    Question 68. As you are likely aware, the Burmese military has 
committed mass killings, rape, and arson against the Rohingya minority, 
creating a massive refugee crisis. A number of independent groups, as 
well as United Nations experts, determined that these activities amount 
to crimes against humanity. The United States has described them as 
ethnic cleansing and a soon to be released State Department report may 
go further. Beyond the atrocities perpetrated against the Rohingya, war 
rages unabated in the country's north where some of the very same units 
that committed the abuses in Rakhine have been seen operating. Hundreds 
of thousands remain displaced throughout the country because of 
conflict and gross violations of human rights. How should the U.S. 
address this continuing pattern of gross human rights abuses committed 
not just against the Rohingya but also against other ethnic minority 
groups in Burma, such as the Karen or the Kachin?

    Answer. I share your grave concern regarding repeated gross 
violations of human rights perpetrated by Burmese security forces 
against civilians and members of ethnic minority groups in Burma's 
Rakhine State and conflict areas. If confirmed, I will work with 
likeminded countries and international organizations to promote justice 
and accountability. I will also press the Burmese Government to 
cooperate with an independent and credible investigation into these 
abuses. At the same time, I would leverage U.S. assistance to 
strengthen democratic institutions such as rule of law and respect for 
fundamental freedoms in order to create long term peace, stability, and 
respect for the rights of minority ethnic and religious groups in 
Burma.

    Question 69. How do you believe the U.S. should be engaging on the 
question of accountability in multilateral fora, such as the United 
Nations?

    Answer. The United States works with likeminded countries and 
international organizations to promote justice for victims and 
accountability for members of the Burmese security forces and others 
responsible for atrocities and other human rights violations and 
abuses. The United States supported the work of the U.N. Fact Finding 
Mission, which is mandated to establish the facts and circumstances of 
alleged human rights violations by Burmese security forces across Burma 
and will present its findings in the coming weeks, as well as that of 
the U.N. Special Rapporteur for the Situation of Human Rights in Burma 
and the Secretary-General's Special Envoy for Burma. If confirmed, I 
will work with our international partners to identify and support 
available and appropriate steps at the U.N. Security Council and 
General Assembly in pursuit of accountability.

    Question 70. What are the appropriate avenues to pursue 
accountability for what Ambassador Nikki Haley has called a ``brutal, 
sustained campaign to cleanse the country of an ethnic minority.''

    Answer. The United States is pursuing accountability in Burma 
through a whole of government approach. For example, the State 
Department has supported efforts, including U.N. efforts, to 
investigate and document human rights violations and abuses in Burma, 
which will help to identify perpetrators, uncover patterns of abuses 
and violations, map incidents, and determine the sequence of events. If 
confirmed, I will work with international partners to identify and 
pursue all available and appropriate steps that can be taken 
domestically within the United States and at the U.N. Security Council 
and General Assembly to promote justice for victims and accountability 
for those responsible for these abuses in Burma.

    Question 71. Human Rights Watch, Amnesty International, the 
Associated Press, and the U.N. Panel of Experts have all published 
alarming reports exposing the torture, including sexual torture, of 
detainees by Yemeni forces affiliated with and supported by the United 
Arab Emirates. There are also credible allegations that UAE forces 
conducted the torture of Yemeni detainees. Given your extensive career 
working in countries where the U.S. must vet foreign security units for 
gross human rights violations in order to continue providing assistance 
or training, do these reports collectively constitute sufficiently 
alarming evidence to merit a U.S. investigation?

    Answer. I understand the administration has raised concerns about 
these allegations with senior UAE officials. I also understand that the 
United States cannot corroborate these allegations at this time, and 
that UAE officials have denied any involvement in abuses. If confirmed, 
I will emphasize the importance of adherence to international law, 
including the law of armed conflict, and urge the UAE Armed Forces to 
investigate these allegations and take appropriate action.
Syria
    Question 72. The State Department's August 6, 2018 statement on the 
Assad regime's recent issuance of death notices ``affirms what the 
international community has long suspected and can never forget: the 
regime has systematically arrested, tortured, and murdered tens of 
thousands of Syrian civilians.'' The statement went on to call on the 
Assad regime ``to adhere to international laws and norms pertaining to 
the treatment of prisoners, including by allowing access for 
independent monitors.'' How do you propose to pressure the Assad regime 
to adhere to these international laws and norms?

    Answer. The administration continues to support efforts to hold the 
Assad regime accountable for its atrocities by calling attention to 
these at the U.N. Security Council and other fora and by sharing 
publicly information about the regime's abuses, such as its use of a 
crematorium at Sednaya prison to cover up mass prisoner killings. If 
confirmed, I will continue to support accountability and efforts to 
promote compliance with international laws, including those at the 
Organization for the Prohibition of Chemical Weapons to investigate and 
identify those responsible for chemical weapons attacks in Syria and 
those by the U.N. International, Impartial, and Independent Mechanism 
to gather and share evidence in support of prosecutions. I will also 
explore whether additional mechanisms are available to support 
accountability.

    Question 73. Is the State Department also calling for adherence to 
international laws and norms in other countries, including Yemen, Iraq, 
Libya, and Egypt?

    Answer. I believe that all countries, including Yemen, Iraq, Libya, 
and Egypt, must comply with their obligations under international 
humanitarian law and international human rights law.

    Question 74. In each of these countries, what are specific steps 
that the administration is urging to ensure adherence to international 
laws and norms?

    Answer. Each of these countries is either engaged in armed conflict 
or continues to face terrorist threats, including from ISIS. We have 
and will continue to urge these countries to comply with their 
obligations under international humanitarian law and international 
human rights law as they engage in these conflicts and/or seek to 
address the terrorist threat. This includes impartially and 
transparently investigating any alleged violations of international 
law.
Iran
    Question 75. A major focus of the Helsinki summit last month was 
the future of Syria and Iran's presence in that country. In the last 
two months, fighting in Syria has moved south to areas adjacent to 
Israel. While the fighting has been led by the Assad regime, it is 
widely believed that Hezbollah and Iran-backed Shia militias are 
participating in the effort. Israel has made clear it will not accept 
the presence of Iranian backed forces on its northern border. If 
confirmed, how would you suggest the administration shape its strategy 
to counter Iran's influence in Syria?

    Answer. The administration remains committed to countering malign 
Iranian influence throughout the region, including the removal of all 
Iranian and Iranian proxy forces from Syria. Iranian support to Assad, 
particularly the use of sectarian militias guilty of abuses against the 
civilian population, undermines the legitimate political process to 
resolve the conflict in Syria. Russia has approached the United States 
and international partners about providing assistance, but the United 
States and our allies will not provide international reconstruction 
assistance absent a credible political process in Geneva that leads to 
constitutional reform, U.N. supervised elections, and a political 
transition that reflects the will of the Syrian people.
Iran Sanctions
    Question 76. Are you confident there are alternative supplies of 
oil that will allow countries to transition away from purchases of 
Iranian oil?

    Answer. The President determined on May 14, 2018, pursuant to 
section 1245(d)(4)(B) and (C) of the National Defense Authorization Act 
for Fiscal Year 2012, Public Law 112-81, and consistent with prior 
determinations, that there is a sufficient supply of petroleum and 
petroleum products from countries other than Iran to permit a 
significant reduction in the volume of petroleum and petroleum products 
purchased from Iran by or through foreign financial institutions. We 
are working with oil market participants, including producers and 
consumers, to ensure market stability.

    Question 77. The European Union is updating its ``blocking 
statute,'' in order to mitigate the impact of U.S. sanctions on 
European businesses. In what ways can the EU blocking statute undermine 
the re-imposition of U.S. sanctions?

    Answer. The Department is aware of EU and European views on the 
administration's decision to cease participation in the JCPOA as well 
as the EU's revisions to the Annex of its ``Blocking Statute.'' It is 
my understanding that companies are voluntarily withdrawing from Iran. 
Companies are aware of the inherent risks of doing business in a 
country where so much of the economy is controlled by the Islamic 
Revolutionary Guard Corps and where billions of dollars have been used 
to support terrorism around the world. If confirmed, I will work with 
the Department to ensure we continue to discuss our Iran policy with 
European counterparts, including the implications of our re-imposition 
of sanctions previously lifted or waived under the JCPOA.

    Question 78. What specific retaliatory measures could be used if 
the Chinese Government chooses not to comply with U.S. sanctions on 
Iran?

    Answer. The Department is aware of China's views on the 
administration's decision to cease participation in the JCPOA, 
including recent statements by the Chinese Foreign Ministry regarding 
China's intent to continue commercial cooperation with Iran. It is my 
understanding that we continue to discuss our Iran policy with Chinese 
counterparts, including the implications of our re-imposition of 
sanctions previously lifted or waived under the JCPOA. As the President 
has said, the United States is fully committed to enforcing all of our 
sanctions. It is my understanding that we are prepared to work with 
countries that are reducing their imports on a case-by-case basis.

    Question 79. Since Israel's revelation of Iran's secret nuclear 
archive this April, are you aware of any IAEA requests to visit the 
archive location or any other sites that were uncovered by the 
Israelis?

    Answer. It is my understanding that the Department is carefully 
assessing the nuclear archive materials acquired by Israel, and the 
International Atomic Energy Agency (IAEA) is doing the same. A review 
will take time, but I am confident the IAEA will take appropriate 
action as soon as possible to verify safeguards-relevant information. 
It is of course troubling that Iran was carefully preserving its past 
research on nuclear weapons designs, rather than destroying them. This 
fact only reinforces the need for a negotiated outcome that permanently 
ends Iran's proliferation-sensitive nuclear activities.

    Question 80. In the wake of the large-scale protests earlier this 
year in Iran, the administration voiced strong support for the people 
of Iran and their basic rights. Recently, we have again seen people 
throughout Iran protesting the regime's gross mismanagement of the 
economy and spending on regional adventurism. Beyond words of support, 
which are important, what should the U.S. strategy be to support the 
people of Iran?

    Answer. The Iranian regime, which spreads instability across the 
globe, is to blame for the problems facing its people. Systematic human 
rights abuses inside the country, the lack of civil liberties, and 
pervasive government corruption and economic mismanagement are what 
hurt the Iranian people the most. The United States stands with the 
Iranian people who are longing for a country of economic opportunity, 
government transparency, fairness, and greater liberty. If confirmed, I 
will work to counter the totality of Iran's malign activity with our 
friends around the world. The hope is that ultimately the regime will 
make meaningful changes in its behavior both inside Iran and globally, 
which will help the Iranian people.

    Question 81. What is the status of U.S. democracy and broadcasting 
programs in Iran?

    Answer. We continue to support Voice of America Persia and Radio 
Farda, which is the Persian language branch of Radio Free Europe, to 
help ensure the Iranian people receive unbiased news and information to 
help them better understand world events. I believe democracy programs 
are critical for defending national security, fostering economic 
opportunities for the American people, and asserting U.S. leadership 
and influence.

    Question 82. What are feasible confidence-building steps that the 
Saudi-Quartet and Qatar could each take to resolve the dispute and end 
the blockade?

    Answer. The administration has engaged at the highest levels to 
press the Quartet countries and Qatar to resolve their dispute. We have 
strongly encouraged them to take steps toward normalizing relations, 
including re-establishing diplomatic ties and opening airspace, sea 
lanes, and borders. We continue to call on the Quartet and Qatar to end 
provocative rhetoric and attacks in the media that deepen resentment 
among governments and populations. The Department has stressed the 
dispute weakens regional cooperation to the benefit of Iran, disrupts 
the Gulf Cooperation Council, and hinders U.S. efforts to strengthen 
regional defense cooperation. The Department continues to urge the 
parties to resolve the dispute quickly.

    Question 83. Do you assess that any of these governments are open 
to taking steps toward reconciliation?

    Answer. The State Department has seen cooperation among these 
countries in jointly designating terrorists through the Terrorist 
Financing Targeting Center and limited defense cooperation and 
coordination through joint meetings and exercises, but the Quartet and 
Qatar have not yet engaged successfully on the issues that led to the 
dispute. The State Department has emphasized that it is in our mutual 
interest for the Gulf Cooperation Council to have strong, inter-
operable security institutions, integrated economies, and stable 
governments, which requires a resolution to this dispute. The United 
States continues to demonstrate our readiness to facilitate and support 
a mutually agreeable solution.

    Question 84. There is public reporting on several proposed 
purchases by Arab countries from Russia, that if consummated, would 
constitute a ``significant transaction,'' in my view. Please provide at 
least three examples of weapons purchases that, if consummated by any 
government in the NEA Bureau with Russia, would constitute a 
``significant transaction,'' under Section 231.

    Answer. I understand that the Department examines all reports of 
transactions on a case-by-case basis using a multifactor approach to 
evaluate significance. These factors include but are not limited to: 
the nature and magnitude of the transaction, its impact on U.S. 
national security and foreign policy, and its significance for Russian 
defense or intelligence sectors. I understand that we do not prejudge 
the sanctionability of transactions.

    Question 85. Under Egyptian President al-Sisi, there has been an 
expansive use of torture against prisoners, arbitrary arrests, enforced 
disappearances, a crackdown on LGBT people, and draconian restrictions 
on civil society--much of which is to silence dissent, ensure there is 
no viable or credible opposition and eradicate independent voices. Do 
you believe there has been meaningful progress on human rights and 
democracy Egypt in the last year?

   If yes, can you outline what progress has occurred and how you 
        qualify meaningful progress?

    Answer. The State Department has serious concerns regarding human 
rights and governance in Egypt and will continue to raise these 
concerns, including at the senior-most levels of the Egyptian 
Government and make clear the need for progress in addressing them. 
Egypt has committed to address U.S. Government concerns regarding the 
convictions of employees of U.S. NGOs and the new NGO law. The 
Department has made clear to the Egyptian Government that we expect 
progress on resolving these convictions and amending the law. Some of 
these requests to the Egyptian Government will take time to complete; 
however, Egypt has taken steps and made credible commitments to resolve 
these issues within a reasonable timeframe.

    Question 86. A central hallmark of the U.S.-Israel relationship has 
been the close working relationship between the countries. As our two 
countries have faced common threats of terrorism and proliferation, 
cooperation between the U.S. and Israel has grown exponentially. The 
United States has helped underwrite some of the cost of developing 
Israeli military missile defense systems, like Iron Dome, and Israel 
has helped our forces in preparing to combat terrorism. The Joint 
Political Military Group-the JPMG-falls under your jurisdiction. What 
can be done to strengthen the strategic relationship between the U.S. 
and Israel and enhance Israel's standing as an ally and partner of the 
U.S.?

    Answer. If confirmed, I will continue to build on the strong 
cooperation that we have with Israel and use all the tools available to 
me to enhance its status as a partner. I strongly support Israel's 
right to self-defense and recognize the legitimate security concerns 
Iran's current force posture in Syria poses for Israel's security. If 
confirmed, I will work extensively with likeminded countries, including 
Israel, to deter and disrupt Iranian threats.

    Question 87. Over the last several months, Senior Advisor Jared 
Kushner and Special Representative for International Negotiations Jason 
Greenblatt travelled throughout the Middle East to discuss advancing 
peace between the Israelis and Palestinians and ideas on how to 
alleviate the humanitarian situation in Gaza. Given your extensive 
professional experience, can you provide examples of steps that the 
United States could take to help alleviate the humanitarian situation, 
and examples of steps that the PA, Israeli Government, European, and 
Arab Governments could also take?

    Answer. The administration has stressed that addressing the 
humanitarian and economic situation in Gaza is a priority. Hamas's 
continued control of Gaza remains our biggest challenge. As recent 
outbreaks of violence demonstrate, Hamas consistently puts its own 
destructive priorities above those of Gaza's population, making it 
difficult for the international community to move forward with concrete 
steps to improve humanitarian and economic conditions. If confirmed, I 
look forward to working with Israel and our regional partners to find 
concrete and creative ways to improve conditions in Gaza.

    Question 88. Is the objective of U.S. policy for a peaceful 
resolution to the Israeli-Palestinian conflict still a two-state 
solution?

    Answer. The President has stated that the United States will 
support a two-state solution if it is agreed to by both sides. The 
administration has emphasized that in its efforts to advance a 
comprehensive and lasting peace between Israel and the Palestinians, it 
does not seek to impose a solution on the parties. Instead, it intends 
to present a plan that offers a brighter future to both Israel and the 
Palestinians when the time is right. If confirmed, I look forward to 
supporting the work of White House Senior Advisor Jared Kushner and 
Special Representative for International Negotiations Jason Greenblatt 
from the Department of State.

    Question 89. Are there reforms you believe the U.S. should be 
seeking from UNRWA in order for the U.S. to continue our funding?

    Answer. I understand that U.S. contributions to the United Nations 
Relief and Works Agency for Palestine Refugees in the Near East (UNRWA) 
are under review. The administration has publicly emphasized that 
UNRWA's model of operations is unsustainable and that UNRWA needs to 
seek out new voluntary funding streams, increase financial burden 
sharing among donors, and find ways to reduce expenditures. With regard 
to the broader review of assistance to the Palestinians, of which UNRWA 
is a part, I understand the intent is to ensure that U.S. assistance 
advances U.S. foreign policy and national security interests and 
provides value to the U.S. taxpayer.

    Question 90. Pressure on independent media and civil society 
activists continues to grow in Hungary, calling into question the 
country's commitment to the rule of law and democratic values that 
underpin our NATO alliance. Since the April election, Prime Minister 
Orban's Government adopted a so-called ``Stop Soros,'' package of 
legislation that further restricts operating space for civil society in 
Hungary and targets those who assist vulnerable migrants. Orban 
reportedly also endorsed an ``enemies list,'' circulated in pro-
government media (and which included some names of American citizens) 
and vowed revenge against those who oppose him. Academic freedoms are 
also being undermined in Hungary, with the U.S.-accredited Central 
European University (CEU) at risk of having to leave the country next 
year due to legislation targeting certain foreign institutions. Do you 
consider Orban's Government aligned with NATO values and goals, 
particularly on democratic governance and the rule of law?

    Answer. The United States works closely with Hungary as a NATO ally 
and EU member state. We rely on our allies to be strong partners. As 
the President and Vice President have made clear, strong partnerships 
require that Allies meet all their commitments to uphold the values 
enshrined in the Washington Treaty. I understand that the State 
Department has engaged with the Hungarian Government both privately and 
publicly on independent media, civil society, and democratic governance 
issues. This includes at high levels, such as Secretary Pompeo's May 30 
meeting with Foreign Minister Szijjarto, in which the Secretary 
underscored the importance of maintaining a vibrant civil society. If 
confirmed, I will continue this engagement.

    Question 91. Do you commit to personally confront the Hungarian 
Government's anti-democratic and xenophobic behavior? How?

    Answer. The United States relies on its allies and partners to be 
strong. That strength is founded on their commitments to uphold the 
values shared by members of NATO and of the Organization for Security 
and Cooperation in Europe. If confirmed, I will continue to work with 
Hungary to promote our shared transatlantic principles, including 
universal human rights and fundamental freedoms, as well as to foster 
bilateral cooperation that advances U.S. interests. This includes 
pressing--privately and publicly when necessary--in support of those 
values.

    Question 92. Do you support U.S. foreign assistance being directed 
to Hungarian civil society activists, journalists, and independent 
media who are pushing back against anti-democratic trending in Hungary?

    Answer. If confirmed, I will continue to identify opportunities to 
support independent media and NGOs as well as to combat corruption, 
Russian pressure, disinformation, and malign influence in Hungary. If 
confirmed, I will also continue to work with Hungary to promote our 
shared transatlantic principles, including the separation of powers, 
universal human rights, and fundamental freedoms, as well as to foster 
bilateral cooperation that advances U.S. interests.

    Question 93. In particular, will you commit to review the decision 
made against proceeding to award Bureau of Democracy, Human Rights and 
Labor assistance funds to support independent media after a request for 
proposals was issued earlier this year?

    Answer. The United States wants to see a pluralistic media 
environment in Hungary and the broader region. A free press and 
separation of powers are key components of democratic governance and 
underpin the strength of our alliance. As the National Security 
Strategy emphasizes, we believe an informed and engaged citizenry is 
also a fundamental requirement to a free and resilient nation. If 
confirmed, I will work to identify opportunities to support independent 
media and NGOs as well as to combat corruption, Russian pressure, 
disinformation, and malign influence in Hungary.
Northern Ireland
    Question 94. There are growing concerns that the Good Friday 
Agreement will be further jeopardized by the United Kingdom's departure 
from the European Union, and U.S. engagement to encourage full 
implementation of the agreement remains critical. Will you work to 
ensure the expeditious appointment of a Special Envoy to Northern 
Ireland, which the Trump administration has expressed intent to do?

    Answer. The United States remains firmly committed to the Northern 
Ireland Peace Process including the 1998 Good Friday Agreement and 
subsequent agreements. We will continue to engage all parties and 
communities to work together to build a better, shared future. Through 
our Consulate in Belfast we promote reconciliation, two-way trade and 
investment, and cultural exchanges. We will work with the British and 
Irish Governments, as co-guarantors of the Good Friday Agreement, and 
the European Union to ensure twenty years of gains in the peace process 
are not sacrificed by the exit of the UK from the EU. We are looking 
into the possibility of naming an envoy to the region. No personnel 
decision has been made.

    Question 95. Will you work to ensure the expeditious appointment of 
a U.S. Ambassador to Ireland, vacant since the beginning of the Trump 
administration?

    Answer. The President is committed to nominating an ambassador to 
Ireland as soon as possible. In the meantime, the State Department 
continues to engage all parties and communities to work together to 
build a better, shared future through our Consulate General in Belfast 
and Embassies in London and Dublin.

    Question 96. How does the lack of an ambassador there affect U.S. 
interests with respect to the Good Friday Agreement and issues 
surrounding Brexit?

    Answer. The President is committed to nominating an Ambassador to 
Ireland as soon as possible. In the meantime, we continue to engage all 
parties and communities to work together to build a better, shared 
future through our Consulate General in Belfast and Embassies in London 
and Dublin. We will continue to work with the British and Irish 
Governments, as co-guarantors of the Good Friday Agreement, and the 
European Union to ensure twenty years of gains in the peace process are 
not sacrificed by the exit of the UK from the EU.

    Question 97. Turkish aggression and provocations against Greece and 
Cyprus have continued this year, including Turkish naval efforts to 
block ships from exploring hydrocarbon resources in Cyprus' Exclusive 
Economic Zone and Turkish air force dog fights with Greek fighter jets 
over the Aegean. Turkey also continues to stall on efforts to renew 
progress on Cyprus peace talks. And while they were ultimately released 
this week, Turkey's five-month long detention of two Greek soldiers who 
had wandered across the border in bad weather conditions further 
strained ties between these two NATO allies. If confirmed, how will you 
approach combating Turkish threats against hydrocarbon exploration in 
the Eastern Mediterranean and reducing tensions in this region?

    Answer. Turkey is a key NATO Ally and critical regional partner. It 
is in our interest to keep Turkey anchored to the West and aligned with 
the Euro-Atlantic community. The United States recognizes the right of 
the Republic of Cyprus to develop resources in its exclusive economic 
zone. We continue to believe the island's oil and gas resources, like 
all of its resources, should be equitably shared between both 
communities in the context of an overall settlement. We discourage any 
actions or rhetoric that increase tensions in the region. Turkey and 
Greece have been NATO Allies since 1952 and we expect that they will 
resolve any issues that arise between them in the spirit of cooperation 
maintained by all Allies.

    Question 98. How will you approach renewing momentum on Cyprus 
peace talks and working toward the withdrawal of foreign troops from 
the island?

    Answer. If confirmed, I will actively support Cypriot-led, U.N.-
facilitated efforts to reunify the island as a bizonal, bicommunal 
federation and encourage the sides to build upon the progress achieved 
over the past three years of negotiations. The status of military 
forces in Cyprus has been an important issue in these talks, which I 
hope will be addressed in a comprehensive settlement agreement.

    Question 99. The administration's South Asia strategy launched in 
August 2017 adopted harsh rhetoric on Pakistan, but it is unclear 
whether the tactics it has deployed since then have influenced Pakistan 
to back away from its support for Taliban safe-havens that undermine 
peace prospects in Afghanistan, or its support for terrorist groups 
that threaten U.S. interests in the region. Meanwhile, the recent 
election of Imran Khan raises questions about the direction a new 
Pakistan Government will take toward the United States and other 
regional players. In your view, is the administration's pressure track 
on Pakistan working?

    Answer. Our message to Pakistan on this issue has been clear and 
consistent: Pakistan stands to gain from a successful Afghan peace 
settlement and must play a more constructive role in the reconciliation 
process. We in particular want Pakistan's support in bringing the 
Taliban to the negotiating table, even as we pursue multiple channels 
to that end. In addition, since the rollout of the South Asia strategy, 
we have been clear with Pakistan that our relationship cannot continue 
as usual as long as Pakistan does not address U.S. concerns about its 
harmful policies, and have taken significant steps--including the 
suspension of security assistance--to convey that message. Discussions 
about next steps are ongoing, but we are prepared to use all of the 
tools at our disposal to encourage Pakistan to change its destructive 
policies and play its part to bring the Taliban to the negotiating 
table.

    Question 100. What do you see as reasonable next steps to ratchet 
up pressure?

    Answer. The President's South Asia strategy recognizes that the 
United States cannot continue with business as usual in our 
relationship with Pakistan as long as Pakistan does not address U.S. 
concerns about its policies, including its failure to address terrorist 
sanctuaries and fundraising. The administration remains committed to 
using the full range of tools at its disposal to encourage Pakistan to 
take action against all militant and terrorist groups operating on its 
soil. Discussions about which specific tools to use and when to use 
them are ongoing with the administration.

    Question 101. What needs to be done to convince Pakistan to 
support, or at least not undermine, the renewed momentum toward peace 
talks seen in recent months in neighboring Afghanistan?

    Answer. Under the administration's South Asia strategy, we have 
pressed Pakistan hard to end its practice of providing sanctuary for 
militant networks that operate beyond Pakistan's borders and use its 
leverage to push the Taliban to negotiate directly with the Afghan 
Government to advance that country's peace and reconciliation process. 
Our engagements with Pakistan have been clear and unambiguous on these 
issues. While we have seen some limited constructive steps, Pakistani 
actions to date have been insufficient. However, there is no doubt that 
U.S. pressure and the threat of international isolation has attracted 
Pakistan's attention. We will continue this pressure to try to induce 
Pakistan to play a more constructive role in the region and ratchet it 
up as appropriate; at the same time, the administration has many other 
tools at its disposal? and remains committed to engaging with Pakistan, 
particularly the new civilian Government, to build momentum on 
reconciliation efforts.

    Question 102. South Sudan's civil war has been characterized by 
largescale attacks on civilians, destruction, and looting of civilian 
property, sexual violence including rape and gang rape, enforced 
disappearances, arbitrary arrests and prolonged detention, beatings and 
torture, and extrajudicial executions. Parties to the conflict signed 
another peace agreement last week. In the wake of that agreement, the 
administration along with the United Kingdom and Norway (the two other 
members of the Troika) released a statement expressing concern that the 
arrangements agreed to date are not realistic or sustainable. Is the 
recent agreement sustainable in your view, and if not, what 
adjustments, refinements or additions are needed to make it so?

    Answer. It is my understanding that the United States and our 
Troika partners regard the most recent set of agreements as 
unsustainable without the addition of greater detail about how they 
will be implemented. For example, all sides must agree to security 
arrangements in Juba that are robust. We have repeatedly stated that 
the agreements should also be broadly based and inclusive of the needs 
and expectations of the people of South Sudan.

    Question 103. Can a sustainable peace in South Sudan include Salva 
Kiir and Riek Machar in a transitional government?

    Answer. As a first step, the parties must agree to specific 
arrangements that allow the opposition to return to Juba and take part 
in governance. We want free and fair elections that allow for a 
peaceful transition in leadership in the most expeditious and 
responsible manner. We also want the region to guarantee the integrity 
of any peace agreement by holding all of the parties to account.

    Question 104. When will the assistance review for South Sudan be 
completed?

    Answer. I understand that the White House is leading the 
interagency assistance review for South Sudan, and if confirmed, I will 
maintain open channels of communication with Congress as we move 
forward to specific recommendations.

    Question 105. Who is leading this review?

    Answer. It is my understanding that the ongoing assistance review 
for South Sudan is an interagency process that is being led under the 
direction of the White House.

    Question 106. As assistance is connected to policy, is the 
administration undertaking a policy review as well, particularly in 
light of the skepticism expressed by the White House in its July 22 
statement on the political process currently underway in Khartoum?

    Answer. I understand that the administration continues to review 
and update our policy on resolving the conflict in South Sudan. Our 
diplomats in Khartoum will continue to engage with the 
Intergovernmental Authority on Development on our expectations for 
negotiations and communicate, as was done in the White House statement, 
any reservations we have on the process and to apply pressure on the 
parties who have lacked the political will and leadership to adhere to 
past agreements.

    Question 107. When will the administration make a decision on 
whether to appoint a special envoy for Sudan and South Sudan?

    Answer. It is my understanding that the Department, including newly 
confirmed Assistant Secretary Nagy, is reviewing an earlier decision to 
eliminate the position of the Special Envoy. Resolving the humanitarian 
crisis in South Sudan and civil conflicts in both Sudan and South Sudan 
remain policy priorities for the U.S. Government in Africa, as does 
continuing our effort to encourage Sudan to take additional positive 
actions regarding U.S. policy priorities. If confirmed, I will ensure 
that the Department, both in Washington and in the region, remains 
deeply engaged and has the diplomatic tools available to achieve our 
goals in Sudan and South Sudan.

    Question 108. What role do individual members of the 
Intergovernmental Authority on Development have in helping achieve a 
sustainable peace?

    Answer. The State Department, other agencies in Washington, the 
U.S. Embassy in Juba, and other U.S. Embassies in East Africa carefully 
coordinate on a daily basis our engagement with regional and 
international partners to advance the peace process in South Sudan. Our 
diplomats in Sudan maintain open channels of communication with the 
Government as it hosts the talks. We also have regular discussions with 
Ethiopia and Kenya, which assist the mediation. We anticipate Uganda 
will also provide expertise, particularly on security. I understand the 
Bureau of African Affairs is fully engaged in working to find a 
diplomatic solution to the crisis in South Sudan.

    Question 109. What should the United States be doing to incentivize 
each member of the Intergovernmental Authority on Development to 
prioritize and pursue a sustainable peace in South Sudan?

    Answer. The United States is closely engaged with the Governments 
of Sudan, Kenya, Ethiopia, and Uganda in the Intergovernmental 
Authority on Development process to reach a negotiated political 
settlement. With each government we have stressed the importance of 
unity of action on South Sudan as a regional security issue and have 
urged them to pursue solutions inclusive of the people of South Sudan, 
not just the elites. We want them to guarantee the integrity of any 
peace agreement by holding all of the parties to account.

    Question 110. As the administration considers the next steps in the 
talks with the Government of Sudan on normalization of the bilateral 
relationship, what is the United States requesting of Sudan with 
respect to South Sudan?

    Answer. I understand the primary focus of our bilateral engagement 
with Sudan will continue to be on issues internal to Sudan, including 
ending internal conflicts, improving protections for human rights and 
religious freedom, and expanding humanitarian access. However, the 
Department of State will also continue to cooperate on South Sudan 
negotiations, and insist that Sudan avoid any destabilizing actions 
there. Moreover, we will maintain open lines of communications with the 
Government of Sudan, and others in the region, to support successful 
negotiations.

    Question 111. What role should the U.S. play in ensuring the peace 
process includes all relevant stakeholders, not just those who were 
party to the 2015 Agreement on the Resolution of the Conflict in South 
Sudan?

    Answer. The Department has stated repeatedly that any new peace 
arrangement must include the views of ordinary men and women in South 
Sudan. Within the region, the Department has stressed the importance of 
unity of action and concerted effort on South Sudan as a regional 
security issue, and has urged the region to pursue inclusive solutions, 
not just arrangements that suit the elites.

    Question 112. What further steps do you believe the U.S. can take 
to support accountability for human rights abuses and crimes against 
humanity, including accountability for those at senior levels of the 
South Sudanese Government and opposition?

    Answer. I understand that the United States continues to call for 
the Government of South Sudan to sign, without further delay and 
irrespective of other peace negotiations, the memorandum of 
understanding with the African Union in order to establish the Hybrid 
Court for South Sudan. If confirmed, I will continue to press the South 
Sudanese to make the Hybrid Court a reality. I will also continue to 
support efforts to collect evidence and documentation in support of the 
court and other transitional justice mechanisms.

    Question 113. What is the administration doing, in particular Amb. 
Thomas Hushek, to secure the release of political detainees in South 
Sudan, including but not limited to Peter Biar?

    Answer. I, too, am deeply concerned by the closing of space for 
civil society in South Sudan, as well as about the Government of South 
Sudan's continued holding of prisoners of conscience in direct 
violation of its obligations under international covenants and the 
December 2017 Agreement on the Cessation of Hostilities. I understand 
the Department has repeatedly made clear through official 
representations that Mr. Peter Biar Ajak's detention, under what appear 
now to be spurious charges, is unacceptable. Ambassador Hushek and 
eight other ambassadors in South Sudan called for his immediate release 
soon after he was detained, and we raise his case-and the plight of 
political prisoners generally-at every opportunity.

    Question 114. When will the administration finalize the next steps 
in talks potentially to leading to a normalization of relations with 
Khartoum?

    Answer. I understand the administration is currently finalizing 
plans for a Phase II engagement plan with Sudan. While we cannot give a 
specific date, if confirmed, I will work to ensure that the process 
moves quickly so that leverage can be applied to see more sustainable 
progress related to our objectives in Sudan.

    Question 115. What elements should such a plan include in your 
view?

    Answer. Phase II is envisioned to require sustained progress on key 
U.S. priorities including, among others, progress in expanding 
counterterrorism cooperation, ensuring compliance with all U.N. 
Security Council resolutions on North Korea, improving humanitarian 
access, contributing to regional stability, ending conflicts within 
Sudan, improving protections for human rights and religious freedoms, 
and addressing outstanding U.S. court judgments in favor of victims of 
terrorism related to Sudan.

    Question 116. When does the administration plan to brief Congress 
about its plans?

    Answer. If confirmed, I will plan to ensure transparency with 
Congress on a next phase engagement plan with Sudan. As the plan is 
finalized within the interagency, the Department, led by the Bureau of 
African Affairs, plans to brief Congress and to continue briefings 
thereafter upon beginning a new engagement framework with Sudan.

    Question 117. Cameroon is facing a terrorist threat in the Far 
North Region and a secessionist movement in the Anglophone regions. In 
July and August of this year two separate recordings purporting to show 
Cameroonian military executing civilians in the far north have 
surfaced. The Government has said it is investigating the latest video 
of soldiers killing civilians, and has arrested seven in connection 
with a video that came to light in July. Human rights organizations 
have alleged significant human rights abuses by both government 
security forces and non-state armed actors in the Anglophone regions. 
What role could the U.S. play in helping address the Anglophone crisis?

    Answer. If confirmed, I will continue the Department's effort to 
urge for an end to the violence and to call for broad-based national 
dialogue without preconditions. The Department has consistently urged 
respect for human rights and accountability for those responsible for 
human rights violations and abuses in Cameroon. The responsibility to 
protect civilians and uphold the rule of law lies primarily with the 
Government of Cameroon. We continue to work with our partners to 
explore all options and opportunities for a solution towards peace and 
stability across Cameroon.

    Question 118. If confirmed, what steps will you take to secure 
access to the Anglophone region for international and domestic 
observers to ascertain the veracity of the current accounts of 
widespread government abuses in the area?

    Answer. It is important that humanitarian aid workers and rights 
advocates have access to areas where there are known concerns about 
alleged human rights abuses and violations, particularly with respect 
to ensuring accountability. The Department has urged Cameroon to allow 
our humanitarian partners and human rights observers access to the 
Anglophone region. If confirmed, I will continue to stress the 
importance of expanding and maintaining this access in support of 
humanitarian assistance, human rights monitoring efforts, and 
accountability while ensuring safety and security.

    Question 119. How much has the United States provided by way of 
security assistance for Cameroon over the past three fiscal years?

    Answer. The Department has provided Cameroon approximately $73. 1 
million obligated during fiscal years 2015 to 2017. A large amount of 
that security assistance comes from regional and centrally managed 
sources that are determined in the year of execution. This figure does 
not include assistance the U.S. Government provides through the 
Department of Defense.

    Question 120. Should the United States continue security assistance 
to the Cameroon absent the Government making public the results of a 
transparent, thorough, credible investigation of military excesses in 
both the Far North and Anglophone regions?

    Answer. I take the recent allegations of human right violations 
carried out by government forces very seriously, and support the 
Department's ongoing efforts to raise these concerns with the 
Cameroonian Government. Cameroon is a multi-faceted security partner in 
a sub-region of Africa facing significant security and governance 
challenges. If confirmed, I will work to maintain pressure on the 
Government to improve the human rights record of and accountability for 
its security forces while also supporting efforts to protect civilians 
and provide security in the region. I will work to remind the 
Government of Cameroon of the risks to peacekeeping, maritime security, 
and counter terrorism strategies that could result from poor 
performance and conduct by its security forces. If confirmed, I will 
continue to press the Government of Cameroon to make the findings of 
ongoing investigations transparent and public.

    Question 121. Cameroon ranks 23 out of 178 countries on The Fund 
for Peace Fragile States Index. It scores just 25 out of 100 on 
Transparency International's Corruption Perception Index, ranking 153 
out of 180 countries. Legislative and municipal elections which were 
slated to happen later this year have been postponed for 12 months; 
presidential elections are scheduled for October 7, and longtime 
President Paul Biya will stand for a 7th term. How much has the United 
States invested in democracy and governance funding in Cameroon?

    Answer. The United States has invested more than $500,000 in each 
of the past two fiscal years to build civil society capacity and 
advance human rights in Cameroon. The Department is working to 
establish a $1 million bilateral Democracy, Human Rights and Governance 
program in Cameroon as mandated by Congress.

    Question 122. In your view, are we correctly balancing the three 
D's--Defense, Diplomacy and Development in Cameroon?

    Answer. Balancing the three D's in Cameroon is vitally important 
not only for Cameroon's domestic peace and stability, but for the 
entire sub-region. If confirmed, I will work with my colleagues in the 
Departments of State and Defense, USAID, and all other relevant 
agencies to ensure our current defense, diplomacy, and development 
efforts in Cameroon serve U.S. interests and bring about positive and 
sustainable outcomes for the people of Cameroon.

    Question 123. Have we achieved an appropriate balance between DRG 
and security assistance?

    Answer. There is a critical link between democracy, respect for 
human rights, and good governance on the one hand, and sustainable 
peace and security, on the other, including in Cameroon. Without 
sustained diplomatic efforts emphasizing the importance of human 
rights, accountability, and democratic institutions, peace and security 
in Cameroon will remain unattainable. The Department and USAID continue 
to support core DRG programming in the region while promoting 
professional and rights-respecting security forces. Continued 
engagement with our security partners enhances our ability to mitigate 
human rights violations, protect civilians, and urge the Government to 
hold security forces accountable.

    Question 124. What should the U.S. be doing to help strengthen 
political parties and support and strengthen democratic institutions in 
Cameroon?

    Answer. If confirmed, I will ensure that the Department continues 
to provide capacity-building support for democratic institutions and 
civil society organizations in Cameroon through targeted technical 
assistance and advocacy, combined with consistent engagement and 
strategic public messaging. We will continue to call for respect for 
democratic norms, human rights, the rule of law, and accountability in 
accordance with Cameroonian and international law.

    Question 125. What should the U.S. be doing to strengthen 
transparency in the public sector, and an independent judiciary?

    Answer. The United States will continue efforts to support and 
empower reformers and institutions at all levels of government to 
promote transparency and democratic institutions, including the rule of 
law and access to justice. At the core of our efforts is the promotion 
of democratic, transparent, effective, and accountable governance, 
stressing the value of institutions that both empower citizens and 
respond to their aspirations. A foundation of citizen-centered 
democratic governance is essential for building confidence in 
Cameroon's future. An aspect of this effort will be providing civil 
society actors opportunities to increase their capacity to advocate for 
greater accountability and transparency on the part of the Cameroonian 
Government.

    Question 126. President Kabila announced that he will not seek a 
third term, a significant step forward in At the same time, and despite 
multiple rounds of targeted sanctions from the United States and other 
donor governments, violence is escalating throughout the country, and 
the Government continues to crackdown against the political opposition, 
media and civil society groups. If confirmed, what steps will you take 
to reiterate the imperative that elections are held by the end of the 
year, and Kabila upholds his commitment to step down?

    Answer. If confirmed, I will continue the administration's pressure 
on the Democratic Republic of the Congo (DRC) government to make clear 
that we expect the DRC to hold elections on December 23, 2018 and that 
President Kabila will not run for re-election, per his commitments made 
in the December 2016 Agreement and in accordance with the DRC's 
constitution. I will work with the interagency to advance our 
objectives, including targeted sanctions, public messaging, diplomatic 
engagement, senior-level visits, and technical assistance. We expect 
U.S. and international engagement will lead to greater implementation 
of the December 2016 Agreement and a credible and inclusive election 
that abides by the DRC constitution.

    Question 127. What steps should be taken to ensure the human rights 
situation does not deteriorate further?

    Answer. If confirmed, I will continue the administration's active 
engagement in pressing for greater respect for human rights in the 
Democratic Republic of the Congo (DRC). This includes condemning and 
seeking accountability for excessive use of force by security services 
against citizens, violations of human rights, and denial of basic civil 
and political rights. I will support the implementation of U.N. 
resolutions and efforts to protect human rights defenders and media 
freedoms. This includes consideration of further use of our sanctions 
authorities against human rights violators and abusers or those 
responsible for undermining democratic processes in the DRC.

    Question 128. How will you coordinate with USUN and the Bureau for 
International Organizations on efforts to ensure elections by the end 
of the year?

    Answer. If confirmed, I will continue the administration's pressure 
on the Congolese Government to underscore that the United States 
expects the DRC to hold transparent, credible, and inclusive elections 
on December 23. I will continue our close coordination with Ambassador 
Haley and USUN to urge the Congolese Government to increase political 
space for all stakeholders. If confirmed, I will support the ongoing 
efforts of the Bureau of International Organization Affairs and USUN to 
make the U.N. peacekeeping mission in the DRC, MONUSCO, responsive, 
flexible, and able to actively and effectively execute its mandate, 
including supporting a credible and inclusive electoral process and 
protecting civilians from potential election-related violence.

    Question 129. Will you consider asking for the Appointment of a 
Special Envoy for the Great Lakes to assist with these efforts?

    Answer. The Department of State currently has a senior coordinator 
for the Great Lakes region, who is an active liaison with international 
partners on critical Democratic Republic of the Congo and Great Lakes 
issues. The U.N. estimates over 100 armed groups operate in the east. A 
failed or flawed election in December 2018 threatens to further 
destabilize an already volatile region, including its borders with 
Uganda, Rwanda, and Burundi. If confirmed, I will work with the Bureau 
of African Affairs and our ambassadors in the Great Lakes region to 
ensure our policy objectives are aligned.

    Question 130. In the wake of the July 30 elections, human rights 
organizations reported that opposition supporters have been abducted, 
beaten and raped. Opposition leader Tendai Biti was detained after 
being expelled from Zambia under dubious legal circumstances. Six 
civilians were killed by the military in response to protests prompting 
U.N. Secretary Antonio Guterres to call President Mnangagwa to ask that 
he reign in security forces. National observers indicated that the 
final voters' role was not released in time to analyze it for flaws, 
and international observers noted the lack of a level playing field. 
What is the status of sanctions under the Zimbabwe Democracy and 
Economic Recovery Act of 2001 as recently amended and signed into law?

    Answer. The restrictions spelled out in ZDERA remain firmly in 
place. I understand that the recent amendments to ZDERA underscore 
reforms required for consideration of lifting ZDERA restrictions, and 
we will continue to rely upon this legislation as we assess our 
bilateral relationship. We continue to closely watch the results of the 
July 30 general election and its aftermath, but speaking broadly, it 
was not the election we would have wished for Zimbabwe. Going forward, 
any re-evaluation of our relationship remains directly linked to deep 
and meaningful reforms only the Government of Zimbabwe can undertake, 
including concrete, specific progress on democratic governance, respect 
for human rights, and the rule of law.

    Question 131. Should sanctions be extended in your view?

    Answer. Consistent with ZDERA, our restrictions on international 
lending to Zimbabwe remain in place, as do our visa sanctions and 
targeted financial sanctions under the executive orders. We will 
continue to encourage the Zimbabwean Government to implement deep 
political and economic reforms. The recent electoral process did not 
represent what we wished for the people or Zimbabwean Government and we 
are extremely disappointed by post-election violence, including the 
ongoing intimidation of opposition supporters. The onus is on the 
Government of Zimbabwe to carry out real reforms in the areas of human 
rights, the economy, and democratic governance before we can consider 
major changes to our current posture.

    Question 132. What is the status of Tendai Biti?

    Answer. I understand the trial of former Minister of Finance Tendai 
Biti is underway in Harare. He is accused of violating the electoral 
law and inciting violence. He has denied the charges and was released 
on bail while the trial continues. The Zimbabwean Government is now 
responsible for Biti's safety and welfare. I understand the Department 
has called on Zimbabwe's leaders to guarantee his physical safety and 
ensure his rights are respected, consistent with the rule of law and 
Zimbabwe's international obligations and commitments. I also understand 
the Department has conveyed these concerns to Zimbabwean officials in 
both Washington and Harare.

    Question 133. What statements have we made to the Government of 
Zambia about his expulsion?

    Answer. I understand on August 9, the Department spokesperson 
issued a statement in which we expressed our deep concerns about 
Zambia's decision to hand over Mr. Biti to the Zimbabwean authorities 
despite what we believed were credible concerns for his life and a 
Zambian court order blocking his expulsion. On August 9, Assistant 
Secretary Nagy also convoked Zambia's Ambassador to the Department to 
express the U.S. Government's grave concerns about Zambia's decision. 
The U.S. Ambassador in Zambia also relayed our concerns to officials in 
Zambia.

    Question 134. Have other opposition leaders in Zimbabwe been 
similarly detained?

    Answer. I understand the Department has received credible reports 
of numerous detentions, beatings, and abuses of Zimbabweans since the 
July 30 election, particularly targeting opposition activists.
    We have expressed our serious concerns over these reports in our 
conversations with Zimbabwean officials in Washington and in Harare.

    Question 135. What actions should the Government be taking in 
response in your view?

    Answer. We should continue to encourage the Zimbabwean Government 
to implement deep and meaningful political and economic reforms. The 
responsibility continues to lie with the Government of Zimbabwe to set 
itself on a new path of robust reforms that may allow the United States 
and our international partners to engage the country in ways that have 
not been previously possible.

    Question 136. Nigeria will hold presidential elections in February 
2019 but the country remains engulfed by a number of security 
challenges, perhaps most notably the Boko Haram/ISIS West Africa crisis 
in the northeastern part of the country and the farmer-herder conflict 
in the middle belt. What do you believe is the right approach for the 
United States when it comes to security cooperation with Nigeria?

    Answer. A robust U.S. interagency effort is required to help the 
Nigerian Government and civil society address instability while 
building more capable, professional, and accountable Nigerian security 
forces that respect human rights and protect civilians. The U.S. 
Government must continue to employ diplomacy--both public and private--
and programs to achieve this goal. We must press the Nigerian 
Government for credible and transparent investigations into allegations 
of corruption and human rights violations, pursuing accountability for 
those responsible. If confirmed, I will ensure that our security 
cooperation with Nigeria continues to support our goals of increasing 
security, respecting human rights, and protecting civilians.

    Question 137. What is the genesis, to the best of your knowledge, 
of the conflict in the middle belt?

    Answer. It is my understanding that long-standing rural violence 
has worsened considerably this year. While the conflict dynamics vary, 
the violence largely stems from a competition for resources, especially 
over arable land. With farmers coming from majority Christian ethnic 
groups and herders from majority Muslim ethnic groups, the conflict 
seems to play out along ethnic and religious lines, although we do not 
assess that ethnicity or religion are the primary drivers. Conflict is 
also likely being enflamed due to identity politics as Nigeria's 2019 
elections approach. The prevalence of arms, inadequate security and law 
enforcement responses, and impunity worsen the situation. Armed 
civilian self-defense forces, formed due to attacker impunity and long-
standing indigene-settler tensions, exacerbate the situation as well.

    Question 138. What steps should we be taking to mitigate violence 
there?

    Answer. If confirmed, I will encourage a multi-faceted approach to 
helping Nigeria prevent and mitigate this conflict. In public 
messaging, we will continue to call for an immediate end to violence, 
for the swift and voluntary return of displaced communities, and for 
perpetrators to be brought to justice. We must help Nigerian political, 
religious, business, and community leaders speak out for peace, work 
together to implement reforms to modernize herding and farming 
practices, and improve employment opportunities and service delivery 
for rural populations. I understand the U.S. Government already works 
to improve the capacity of Nigerian security and judicial services to 
achieve an improved response and adherence to human rights. I welcome 
President Buhari's commitment to protect all Nigerians and to prevent 
religious conflict. If confirmed, I commit to working with Nigeria and 
other partners to achieve this goal.

    Question 139. How can the U.S. strike the right balance between 
addressing terrorism concerns and human rights concerns as regards to 
accountability for human rights abuses by the Nigerian military?

    Answer. To combat both ISIS-West Africa and Boko Haram, the 
Nigerian military must execute effective military operations against 
asymmetric threats. It must also be a force that protects its citizens 
and respects human rights. In the press conference during his April 30 
visit to the White House, President Buhari reiterated his deep 
commitment to the principles of human rights as well as the promotion 
and protection of people's freedoms, even while fighting terrorism. He 
also committed to investigating all documented cases of human rights 
abuses and holding violators accountable for their actions. If 
confirmed, I will work to hold Nigeria to that commitment while 
bolstering Nigeria's ability to maintain peace and security.

    Question 140. Has the administration finalized its election 
strategy?

    Answer. In my understanding, the interagency Nigerian election 
strategy has been completed and will be updated and revised as needed.

    Question 141. What are the major elements of the [election] 
strategy?

    Answer. In my understanding, the interagency Nigerian election 
strategy states that the U.S. Government goal for Nigeria's 2019 
elections are that they be free, fair, transparent, and peaceful with 
results that reflect the will of the Nigerian people. The strategy 
plans and coordinates U.S. Government diplomatic engagement, public 
messaging, and programs related to the elections. The U.S. Government 
provides technical assistance to Nigeria's election institutions and 
parties, supports civil society election monitoring efforts, conducts 
its own elections observation across the country, works to prevent 
electoral violence, and supports Nigerian voter education and civic 
education efforts. If confirmed, I will ensure that the U.S. Government 
continues working with the Nigerian Government and civil society to 
strengthen democracy.

    Question 142. The Nigerian Air Force mistakenly bombed an IDP camp 
in Rann in January 2017, killing as many as 200 people. There has been 
no report to the public about what went wrong. The Army is accused of 
massacring 300 people and burying them in a mass grave in Zaria in 
December of 2015. Recommendations made by the Kaduna Judicial 
Commission of Inquiry into the Zaria massacre have not been taken up by 
the Federal Government. In mid-2015, Amnesty International released a 
report alleging that the deaths of 8000 civilians are attributable to 
the Nigerian military in northeast Nigeria, and that specific 
commanders had knowledge of torture, extra-judicial killings and 
arbitrary detentions in overcrowded facilities. To your knowledge, has 
anyone been held accountable for the Rann bombing or the Zaria massacre 
through a transparent legal process?

    Answer. I understand that the Nigerian Government established an 
independent, civilian-led Presidential Investigative Panel in 2017 with 
a broad mandate to investigate allegations of human rights abuses by 
the military, including the December 2015 events at Zaria in Kaduna 
State, but that the findings have not yet been made public. I am not 
aware that anyone accused of wrongdoing by the Kaduna state Judicial 
Commission of Inquiry into the Zaria attacks has been held to account. 
I understand that the Nigerian Air Force established a six-person panel 
to investigate the January 2017 Rann bombing, but I am not aware if 
that investigation has been made public or if anyone has been punished 
for wrongdoing. If confirmed, I will look into both cases.

    Question 143. If confirmed, what specific actions will you take as 
Under Secretary of State for Political Affairs to support 
accountability for the Rann bombing and the Zaria massacre?

    Answer. If confirmed, I will underscore that human rights abuses 
and impunity for such violations tarnish Nigeria's international 
reputation, undermine the trust of its citizens, impede 
counterterrorism efforts, and hinder U.S. ability to partner with 
Nigeria. I will urge the Nigerian Government to implement credible 
investigations into allegations of security force abuses to ensure 
accountability. The State Department will also continue to use 
reporting to document human rights concerns publicly. In 2017, the 
Nigerian Government created an independent, civilian-led Presidential 
Investigative Panel with a broad mandate to investigate allegations of 
human rights abuses by the military. If confirmed, I will press the 
Nigerian Government to release these findings publicly and hold those 
found guilty of wrongdoing to account. of the investigation into either 
[Rann bombing or Zaria attack] incident?

    Answer. I understand that the sale of up to twelve A-29 aircraft to 
the Nigerian Government includes training and other components that aim 
to improve the professionalism of Nigerian security forces. This 
training will emphasize protecting human rights, preventing harm to 
civilians, and upholding the Law of Armed Conflict consistent with 
President Trump's new Conventional Arms Transfer Policy that 
prioritizes reducing harm to civilians. The sale must support efforts 
to create a more capable and professional Nigerian security force that 
respects human rights, upholds the law of armed conflict, and is better 
able to counter terrorism. If confirmed, I will urge credible 
investigations into allegations of human rights abuses, more 
transparent efforts to end impunity, and accountability for individuals 
implicated in wrongdoing.

    Question 144. We continue to hear of concerns, particularly in the 
Bureau of International Organization Affairs, about targeting of and 
retaliation against career employees based on their perceived political 
affiliation or work on policy initiatives under the previous 
administration. As I mentioned in your nomination hearing, such actions 
have no place in the federal government. If confirmed, do you commit to 
familiarize yourself with these allegations, including reading the 
documents that the Department has made available to the Inspector 
General?

    Answer. I find the alleged behavior described highly objectionable, 
if true, and am pleased to learn the State Department is appropriately 
investigating these allegations through the strong, independent Office 
of the Inspector General and the U.S. Office of Special Counsel. If 
confirmed, I am committed through my leadership to ensure that our 
policies and protections for employees are rigorously enforced and that 
allegations of this nature are appropriately addressed.

    Question 145. Do you also commit to report to the committee whether 
or not you determine that, as the Undersecretary of State for Political 
Affairs, there are steps you need to take before the Inspector General 
investigation is complete?

    Answer. I understand that the Department has referred allegations 
of political reprisal against its career employees to the Department's 
Office of the Inspector General and the U.S. Office of Special Counsel. 
I understand that the Department is fully cooperating with those 
investigations. If confirmed, I will ensure the Department takes 
appropriate action in connection with those investigations, including 
keeping the committee appropriately informed.

    Question 146. What will you do to ensure that all employees under 
your leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. The Department is committed to adhering to the merit 
systems principles in its employment practices and ensuring that 
prohibited personnel actions are not tolerated. If confirmed, I would 
uphold these commitments without question by ensuring that Department 
employees continue to receive required training and notifications to be 
aware of their rights and protections under the law and that the 
Department takes appropriate action following any findings of 
prohibited personnel practices.

    Question 147. As stated in a letter I sent to Secretary Pompeo on 
August 16, I am deeply concerned about the increasing challenges faced 
by Foreign Service Officers who have children with disabilities, such 
as the denial or revocation of medical clearances and the withdrawal of 
funding for services and support for their children abroad--which they 
would be entitled to in the United States. During your tenure as U.S. 
Ambassador in Pakistan, were you aware of any of these issues among 
your staff?

    Answer. The Embassy in Islamabad and the three Consulates General 
in Lahore, Karachi, and Peshawar are unaccompanied posts due to the 
high threat security environment, although adult Eligible Family 
Members hired into full-time positions are allowed to reside at post. I 
was aware, however, that a number of Foreign Services Officers serving 
in Mission Pakistan were separated from their families, including some 
children with disabilities, for the duration of their assignment. 
Families are vital to the success of our diplomatic efforts abroad, and 
if confirmed, I will continue to strongly advocate for an environment 
that supports the well-being of all the Department's employees--and 
their families--as they carry out our important mission domestically 
and abroad.

    Question 148. If confirmed as Undersecretary of State for Political 
Affairs, will you be a strong advocate within the Department for 
Foreign Service Officers, especially those who have children with 
disabilities?

    Answer. If confirmed, I will support all Foreign Service Officers 
within the Department. In particular, I will support families to work 
with the relevant bureaus within the Department to ensure that FSOs who 
have children with disabilities receive allowances provided for under 
the law and Department policy.

    Question 149. Under former Secretary of State Tillerson, the 
Department's talent base suffered from a damaging and inexplicable 
hiring freeze, as well as an unnecessary and stark reduction in the 
intake of new Foreign Service Officers. Please describe how these 
personnel policies effected the work of the U.S. Embassy in Pakistan 
during your tenure there as Ambassador.

    Answer. The U.S. Embassy in Islamabad and our consulates in 
Karachi, Lahore, and Peshawar currently employ 437 U.S. direct hire 
staff, 31 eligible family members EFMs), and 1,488 locally employed 
staff, who fill critical roles across the Mission in advancing U.S. 
foreign policy. Changes in the Department's personnel policies 
generated delays that led to staffing gaps, particularly for our EFM 
positions. As Ambassador, I successfully advocated for filling these 
positions as a cost-effective, morale-boosting measure to ensure my 
workforce was fully equipped to advance American interests in Pakistan.

    Question 150. If confirmed, how will your personal experience 
navigating the effects of these disruptive policies inform your 
recommendations as a member of the Department's senior leadership?

    Answer. Throughout my career, I have witnessed that effectively 
advancing U.S. interests around the world requires the Department to 
have a diverse, well-equipped workforce ready to meet the challenges we 
face. Secretary Pompeo's decisions in May to authorize Chiefs of 
Mission to hire eligible family members overseas and lift the hiring 
freeze on Foreign Service and Civil Service employment, and 
subsequently to support hiring above attrition are crucial in this 
regard. If confirmed, I will draw on my over three decades of 
experience in the Department to urge the Secretary to continue to 
pursue policies that strengthen our Foreign Service and Civil Service 
through appropriate recruiting, hiring, training, promotion, and 
workforce management practices.

    Question 151. The President's Executive Order 13769 restricted 
travel to the United States from a number of majority Muslim countries. 
Please describe your opinion of E. O. 13769.

    Answer. I understand the restrictions imposed by the President were 
carefully considered to enhance the effectiveness of our security 
screening and to prevent the entry of foreign nationals for whom the 
U.S. Government lacks sufficient information to assess adequately the 
risk they may pose. U.S. foreign policy, national security, and counter 
terrorism goals were assessed in determining the restrictions. The 
restrictions and limitations are chosen to both encourage foreign 
governments to comply with the information sharing standards as well as 
to protect the United States until such time as the improvements occur.

    Question 152. Are you concerned about the effect of that EO on our 
relationship with countries that are subject to it?

    Answer. We will continue to work with identified countries to 
address information sharing deficiencies that resulted in the 
recommendation that their nationals be subject to travel restrictions. 
The Secretary of Homeland Security, in consultation with the Secretary 
of State and Attorney General, will regularly review and recommend 
countries for removal of these restrictions as circumstances warrant, 
such as an improvement in information sharing practices.

    Question 153. Are you concerned about the effect of that EO on the 
United States' reputation around the globe?

    Answer. The Department takes securing our nation's borders very 
seriously. Every visa decision is a national security decision and we 
engage with all foreign governments to communicate that information 
sharing is a top priority directly related to national security. After 
implementing Presidential Proclamation 9645, we continued working with 
identified countries to address information sharing deficiencies that 
resulted in the recommendation that their nationals be subject to 
travel restrictions. Per the Proclamation's provisions, the Department 
of State consulted with the Department of Homeland Security on a 
process to consider adjustments to the restrictions based on countries' 
compliance with information sharing and identity-management criteria. 
Since implementing these measures, many foreign governments have made 
significant improvements with identity management and information 
sharing practices.

    Question 154. Have any of your subordinates ever made complaints, 
either to you or about you, of sexual harassment, racial 
discrimination, or a hostile workplace?

    Answer. During my career as a senior leader at the Department of 
State, including as Chief of Mission in Jordan, Lebanon, and Pakistan, 
I have worked with the Office of Civil Rights to respond immediately to 
any complaints made by my staff of discrimination, harassment, or a 
hostile workplace. I am not aware of any such complaints made about me.

    Question 155. If so, what were the circumstances and how was it 
resolved?

    Answer. I am not aware of any such complaints made about me. When 
complaints of sexual harassment by my staff were brought to my 
attention, I worked with the Office of Civil Rights to respond 
immediately in accordance with applicable laws, regulations, and 
Department policies. In some cases, this resulted in disciplinary 
action.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Hon. David Hale by Senator Marco Rubio

    Question 1. Do you believe the Chinese Government and Communist 
Party are currently executing information operations within the United 
States, including through Beijing-funded Confucius Institutes?

    Answer. The United States objects to efforts by foreign governments 
to use coercive, criminal, or corrupt means to interfere with our 
democratic societies. The Department has a program to actively engage 
the higher education community to raise awareness of the concerns about 
Confucius Institutes, academic freedom, and the integration of foreign 
students into campus life. If confirmed, I will encourage the higher 
education community to continue sharing American values, including the 
importance of academic freedom, with Chinese and other international 
students. I will ensure we continue to monitor Confucius Institutes so 
that their operations are consistent with the policies of the host 
institutions and in accordance with all applicable laws.

    Question 2. What sorts of Chinese information operations did you 
observe during your time in Pakistan?

    Answer. China has further deepened its longstanding relationship 
with Pakistan since 2015, particularly economically, through the China-
Pakistan Economic Corridor (CPEC). Since then, we have seen China's 
political, economic, and societal influence in Pakistan grow 
significantly. Chinese investment and populations in Pakistan have 
increased substantially, and China has worked with Pakistan to ensure 
widespread positive media coverage and publicity of its investment and 
assistance projects. China has also markedly increased people-to-people 
exchanges with Pakistan. The United States is concerned about the lack 
of transparency with Chinese investment through CPEC.

    Question 3. How can the State Department better support the U.S. 
Government in countering Chinese information operations?

    Answer. The United States objects to efforts by foreign governments 
to use coercive, criminal, or corrupt means to interfere with 
democratic societies. Countering foreign interference in democratic 
processes, institutions, and societies--be it from China or another 
foreign actor--is a critical priority for the United States and the 
State Department. Acts of foreign interference can limit or shape 
otherwise independent judgments, undermine confidence in our 
institutions, and impact market-based decision-making by the private 
sector. While details of these efforts can be discussed further in a 
classified setting, if confirmed, I will pledge to fully support 
ongoing efforts, led by the State Department, to track problematic 
activities and develop strategies to deal with them.

    Question 4. In China's Xinjiang Uyghur Autonomous Region, Uyghurs 
and other primarily Muslim ethnic minorities have been subjected to 
arbitrary detention, torture, egregious restrictions on religious 
practice and culture. There are credible reports that as many as a 
million people are or have been detained in what are being called 
``political reeducation,'' centers, the largest mass incarceration of 
an ethnic minority population in the world today. How do you assess the 
human rights situation in China?

    Answer. Overall, whether it is the shrinking space for foreign non-
government organizations, crackdowns on dissidents and lawyers, 
repression of religious organizations, or the systematic restrictions 
placed on certain ethnic minorities, China's overall human rights 
situation is deteriorating. I am deeply troubled by the Chinese 
Government's worsening crackdown on the human rights and fundamental 
freedoms of Uighurs, Kazakhs, and other Muslims in Xinjiang. China's 
detention of hundreds of thousands, and possibly millions, of 
individuals in Xinjiang is horrific. If confirmed, in close 
coordination with our like-minded partners, I will continue to speak 
out against China's human rights violations and promote accountability 
for these abuses.

    Question 5. Is China perpetrating religious-based violence against 
its own citizens?

    Answer. I am deeply concerned about China's repression of religious 
freedom, such as the large number of Muslim ethnic minorities who have 
been detained in Xinjiang without due process. Elsewhere, there are 
reports of government crackdowns on other religious organizations, such 
as Buddhism in Tibet and Christianity throughout China. Secretary 
Pompeo, Vice President Pence, and others highlighted these troubling 
trends at the recent international Ministerial to Advance Religious 
Freedom. If confirmed, I will urge China to uphold its international 
commitments to promote religious freedom for all individuals, including 
ethnic and religious minorities and those who worship outside of 
official state-sanctioned institutions.

    Question 6. Do you believe that the State Department should 
consider support for Global Magnitsky sanctions against Xinjiang 
officials?

    Answer. The Department of State's role in the implementation of 
Global Magnitsky encompasses all of our diplomatic missions, regional 
bureaus, and many of our functional bureaus as well. If confirmed, I am 
committed to supporting the implementation of the Global Magnitsky 
sanctions program by promoting the pursuit of targets that are 
geographically diverse, at all levels of influence, and balanced 
between human rights and corruption targets. As with all of the State 
Department's sanctions programs, the Department does not discuss 
ongoing or potential sanctions investigations.
Chinese Coercion of the U.S. Private Sector
    Question 7.  The Chinese Government is increasingly aggressive in 
its efforts to compel international companies to toe Beijing's line on 
sensitive topics like Taiwan, Hong Kong, and Tibet. This has been 
especially true when it comes to American companies, such as our 
domestic airlines. The Chinese Government has been pressuring them to 
stop acknowledging reality and instead to list Taiwan as part of China. 
What more can the State Department do to push back on Chinese coercion 
efforts against U.S. and international companies? Where does 
reciprocity come in to play?

    Answer. I object to China's attempts to compel American firms to 
use specific language of a political nature in their publicly available 
content. The United States has raised this issue with our partners and 
urged them to join us in objecting to China's threats. We have worked 
closely with U.S. companies to push back against Chinese Government 
coercion, when it occurs. If confirmed, I will work with others in the 
Department to continue to forcefully call on China to stop coercing 
American companies.
    In stark contrast, in the United States, all companies are free to 
operate their websites and publish marketing materials free of 
political interference.

    Question 8. What should be our red lines when a U.S. -based 
employee for Marriott is fired, in response to Chinese coercion, for 
accidentally liking a tweet on Tibet?

    Answer. The Chinese Government is well aware of our position. We 
have consistently conveyed to Chinese authorities that the United 
States strongly objects to China's attempts to coerce American 
companies and citizens.
    While we do not tell American firms how to respond to China's 
threats, we let them know they have our full support in resisting such 
coercion. If confirmed, I will stress to my Chinese counterparts that 
we strongly object to Chinese Government coercion against our 
companies, and I will continue to support American companies in 
addressing these threats.

    Question 9. Do you think it crosses a red line when China claims 
legal jurisdiction over the public-facing content of an American 
company's web site?

    Answer. I object to Beijing dictating how American and other non-
Chinese companies operate their websites. Chinese companies are free to 
operate their websites without political interference in the United 
States. If confirmed, I will stress to my Chinese counterparts that we 
strongly object to Chinese Government coercion against our companies, 
and I will continue to support American companies in addressing these 
threats.
Cuban Entities Blacklist
    Question 10. The State Department controls the ``List of Restricted 
Entities and Subentities Associated with Cuba,'' which is a blacklist 
of entities with which Americans cannot do business. However, this list 
does not include all entities or subentities owned or controlled by 
another entity or subentity on the list. This means that there are 
large numbers of military and government-controlled companies that are 
missing. If confirmed, do you commit to reexamining to the list to 
ensure that it matches the intent of President Trump's policy change on 
Cuba?

    Answer. On June 16, 2017, the President signed a National Security 
Presidential Memorandum, ``Strengthening the Policy of the United 
States Toward Cuba,'' that outlines how the United States will address 
our policy toward Cuba consistent with U.S. interests. The Departments 
of Commerce and the Treasury published changes to the Cuba sanctions 
regulations that generally prohibit direct financial transactions with 
entities and sub-entities under the control of, or that act for or on 
behalf of, the Cuban military, intelligence, or security services 
identified on the State Department's Cuba Restricted List. I am aware 
the Cuba Restricted List is a living document and if confirmed I will 
seek to ensure the appropriate entities and sub-entities continue to be 
listed.

    Question 11. The State Department controls the ``List of Restricted 
Entities and Subentities Associated with Cuba,'' which is a blacklist 
of entities with which Americans cannot do business. However, this list 
does not include all entities or subentities owned or controlled by 
another entity or subentity on the list. This means that there are 
large numbers of military- and government-controlled companies that are 
missing. If confirmed, do you commit to providing an update to my staff 
on the status of the list in your first 90 days?

    Answer. If confirmed, I will ensure your staff receives an update 
on the status of the Cuba Restricted List within my first 90 days in 
office.

                              LIBERTAD Act

    Question 12. Title III of the LIBERTAD Act contains remedies to 
protect the interests of U.S. claimants. However, the right to action 
in Title III-the ability to recover damages-has been waived by the 
President or Secretary of State every six months for almost 22 years 
under the justification that doing so ``is in the national interests of 
the United States and will expedite a transition to democracy in 
Cuba.'' Do you believe that a transition to democracy in Cuba has 
occurred in Cuba or is being in anyway expedited?

    Answer. Unfortunately, there is no indication the April 19 
leadership transition in Cuba reflects an opening in the country's 
political or economic system. Raul Castro, as the head of the Cuban 
Communist Party, remains Cuba's primary decision-maker and the Party 
continues to prevent opposition parties from participating in public 
life. I understand since 1996, successive Presidents and Secretaries of 
State have waived the right to action in Title III. This has been based 
on an assessment of the U.S. national interest, including the effect 
non-suspension would have on international support to promote 
democratic reforms in Cuba.

    Question 13. Title III of the LIBERTAD Act contains remedies to 
protect the interests of U.S. claimants. However, the right to action 
in Title III-the ability to recover damages-has been waived by the 
President or Secretary of State every six months for almost 22 years 
under the justification that doing so ``is in the national interests of 
the United States and will expedite a transition to democracy in 
Cuba.'' If it hasn't, should the State Department continue to waive 
Title III of LIBERTAD Act?

    Answer. As reflected in the President's National Security 
Presidential Memorandum 5, ``Strengthening the Policy of the United 
States toward Cuba,'' the advancement of human rights and democracy in 
Cuba is a top priority of the administration. The current suspension of 
the right to action under Title III of the Libertad Act is in effect 
through January 31, 2019. I understand the Secretary's decision to 
suspend the effective date of Title III reflects, among other 
considerations, an assessment of the effect non-suspension would have 
on international support to advance fundamental freedoms and democracy 
in Cuba. If confirmed, I will support the Secretary's careful 
assessment of these factors in future determinations.

    Question 14. A large question regarding the future of Syria is 
Iran's presence in Syria. In the last two months, fighting in Syria has 
moved south to areas adjacent to Israel. While the fighting has been 
led by the Assad regime's military forces, it is widely believed that 
Hezbollah and Iran-backed Shia militias are participating in the 
effort. Israel has made clear it will not accept the presence of 
Iranian-backed forces on its northern border. If confirmed, how would 
you suggest the administration shape its strategy to counter Iran's 
influence in Syria?

    Answer. The administration is committed to countering Iran's malign 
influence in the region, including the removal of all Iranian and 
Iranian proxy forces from Syria. Iran's support to Assad, particularly 
sectarian militias guilty of abuses against civilians, undermines the 
legitimate political process to resolve the conflict. Russia and Iran 
lack the material resources for the stabilization and eventual 
reconstruction of Syria. Russia has approached the United States and 
others about providing that assistance, but the United States and our 
allies will not provide assistance absent a credible political process 
that leads unalterably to constitutional reform, U.N. supervised 
elections, and a political transition reflecting the will of the Syrian 
people.

    Question 15. What more should the United States be doing to ensure 
that Israel, our ally and a fellow democracy, has what it needs to 
defend itself against Iranian aggression emanating from Syria?

    Answer. If confirmed, I will continue to build on the strong 
cooperation that we have with Israel and use all the tools available to 
me to enhance its status as a partner. I strongly support Israel's 
right to self-defense, and recognize the legitimate security concerns 
Iran's current force posture in Syria poses for Israel's security. If 
confirmed, I will work extensively with likeminded countries, including 
Israel, to deter and disrupt Iranian threats.
Iran Human Rights
    Question 16. The Iranian people continue to speak out and protest 
the Tehran regime's gross mismanagement of the economy and spending on 
regional adventurism. After the wave of protests across Iran, the Trump 
administration has been vocal in its support for the Iranian people. 
Beyond words of support, how should the U.S. Government support the 
people of Iran?

    Answer. The Iranian regime, which spreads instability across the 
globe, is to blame for the problems facing its people. Systematic human 
rights abuses inside the country, the lack of civil liberties, and 
pervasive government corruption and economic mismanagement are what 
hurt the Iranian people the most. The United States stands with the 
Iranian people who are longing for a country of economic opportunity, 
government transparency, fairness, and greater liberty. If confirmed, I 
will work with our friends around the world to counter the totality of 
the Iranian regime's malign activity. The hope is that ultimately the 
regime will make meaningful changes in its behavior both inside Iran 
and globally, which will ultimately help the Iranian people.

    Question 17. How can the State Department make clear to the people 
of Iran that we support them and that our sanctions are targeted 
towards the regime and not them?

    Answer. The administration has been clear that the Iranian regime 
is to blame for the problems with Iran's economy and that our sanctions 
are meant to put pressure on the Iranian regime so that it changes its 
malign behavior. The regime's systemic mismanagement and decision to 
prioritize an ideological agenda over the welfare of the Iranian people 
has put Iran into a long-term economic tailspin. The administration has 
underscored that Iran's increased oil revenues as a result of the 
nuclear deal could have gone to improving the lives of the Iranian 
people, but instead terrorists, dictators, proxy militias, and the 
regime's own cronies benefitted the most.

    Question 18. The United Nations remains an outlet for anti-Israel 
sentiments and bias. It is regrettable that far too many of our allies 
and partners, particularly in Latin America, consistently vote for anti 
Israel resolutions. It is important that we emphasize to friendly 
governments that we hope to see voting patterns at the U.N. more in-
line with U.S. positions in order to advance the goal of achieving a 
lasting peace between Israelis and Palestinians that is negotiated 
directly between the two parties. If confirmed, will you direct our 
ambassadors to work with their host governments and persuade them to 
vote no or abstain when it comes to anti-Israel resolutions at the 
United Nations?

    Answer. The United States remains committed to combatting anti-
Israel bias and efforts to delegitimize Israel across the U.N. system. 
We actively seek the support of other countries to join us in opposing 
all such efforts. The United States consistently uses its seat on the 
Security Council and membership in the General Assembly and other U.N. 
bodies to push back on bias against Israel. If confirmed, I will 
continue the administration's tireless efforts to publicly and 
privately call on every member state to oppose anti-Israel resolutions, 
reports, and programs.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                  Hon. David Hale by Senator Tim Kaine

    Question 1. Hizballah made significant gains in the May 
parliamentary election. Meanwhile, some fear Hizballah's involvement in 
Syria's conflict, while stretching its resources and inflicting 
casualties on its ranks, is actually an ideal training ground for 
future hostilities with Israel. What are the short-term prospects for a 
reigniting of a conflict on the Israel-Lebanon border?

    Answer. A near-term conflict between Israel and Hizballah would not 
serve the interests of either party. I share your profound concern 
about Hizballah's destabilizing role in Lebanon and in the region. If 
confirmed, I will continue to support all U.S. Government efforts to 
curb Hizballah's influence, including the use of our sanctions 
authorities on Hizballah to the fullest extent possible. I will also 
encourage our partners around the world to enhance their own efforts to 
degrade Hizballah's domestic and international capabilities and 
dismantle its global financial and material support network.

    Question 2. Has Hizballah been weakened or strengthened by its 
involvement in the Syrian conflict and what will you do as 
Undersecretary to counter its impact on the region?

    Answer. Hizballah's involvement in the Syrian conflict has allowed 
it to expand its corrosive influence outside of Lebanon. As such, I 
share your profound concern about Hizballah's destabilizing role in 
Lebanon and in the region. If confirmed, I will continue to support all 
U.S. Government efforts to curb Hizballah's influence, including the 
use of our sanctions authorities on Hizballah to the fullest extent 
possible. I will also encourage our partners around the world to 
enhance their own efforts to degrade Hizballah's domestic and 
international capabilities and dismantle its global financial and 
material support network.

    Question 3. We have seen a worrying uptick of arrests of women's 
rights activists in Saudi Arabia since May, culminating in the late 
July arrests of Samar Badawi and Nassima Sada. Many of these women were 
detained without charge; all have been outspoken for the need for Saudi 
Arabia to enact reforms to ensure basic civil rights and human rights 
for women, including reform of its guardianship regulations. Who is the 
highest level Saudi official with whom a U.S. official has had a direct 
conversation about the need to release these prisoners of conscience, 
and what was the result of that conversation?

    Answer. The administration continues to have concerns about the 
human rights situation in Saudi Arabia. We are closely following the 
recent detention of activists, many of whom have campaigned for the 
types of reforms the Government is now initiating. As described in the 
President's National Security Strategy, the United States supports 
civic efforts to advance women's equality and protect the rights of 
women and girls around the world. Our Charge d'Affaires in Riyadh has 
discussed the arrests of the activists with senior Saudi officials, up 
to and including the foreign minister, and the Department has urged the 
Government of Saudi Arabia to provide information on the arrests and 
cases of women's rights and other activists.

    Question 4. How is the State Department acting more broadly to 
support reform of the guardianship regime and what priority will you 
place on this issue?

    Answer. Our relationship with Saudi Arabia ranges from combating 
ISIS and resolving regional conflicts to pursuing mutually beneficial 
economic and political issues. We support Crown Prince Mohammed bin 
Salman's reforms, including the revocation of the ban on women driving. 
Recognizing the guardianship regime is a feature of traditional Saudi 
culture, we highlight concerns with official gender discrimination in 
our annual Human Rights Report. An effective tool is facilitating the 
higher education of tens of thousands of Saudi men and women in the 
United States, where they are exposed to different values and 
experiences. We urge Saudi Arabia to honor norms of due process and 
rule of law for all citizens, male and female.

    Question 5. Citing national security, President Sisi has authorized 
a crackdown on free speech in Egypt, charging citizens and foreign 
nationals, including Americans, with a variety of crimes for voicing 
their opinions and targeting well-known critics of his regime. An 
Egyptian court in late July sentenced 75 people to death for 
participating in the 2013 Rabaa al-Adawiya sit-in, with 660 more 
awaiting sentencing. What steps will you take to oppose the increasing 
limitations on free speech and dissent in Egypt?

    Answer. Egypt is a country where we have complex challenges and 
where different interests come into play. If confirmed, I look forward 
to advancing our strategic partnership and addressing our common 
challenges, while emphasizing respect for and protection of human 
rights and fundamental freedoms. As Secretary Pompeo has said, when we 
come across a country that is engaged in human rights violations, 
things that are inconsistent with our values, we should call them out. 
We continue to engage in a frank dialogue about Egypt's highly 
restrictive NGO law, its arrests of non-violent activists, and its past 
conviction of employees of U.S. NGOs.

    Question 6. How will you respond if the Grand Mufti upholds these 
death sentences?

    Answer. If confirmed, I look forward to emphasizing respect for and 
protection of human rights and fundamental freedoms. We consistently 
raise our concerns with Egypt's lack of progress on democracy and human 
rights, including concerns over a lack of respect for fair trial 
guarantees, excessive use of preventative custody and pretrial 
detention, trials involving hundreds of defendants, and the use of 
military courts to try civilians.

    Question 7. The U.S. Embassy in Damascus suspended operations in 
February 2012. Since then, five million Syrians have become refugees 
and an additional six million are internally displaced. In your 
testimony, you indicated a policy priority for the United States must 
be supporting conditions for the return of those refugees to Syria. 
However, many of those who departed would not be welcomed back by the 
Assad regime and fear returning to an authoritarian state that brutally 
murdered their countrymen and in many cases, their family members. What 
is your vision for the resolution of the Syrian refugee crisis?

    Answer. If confirmed, I will continue to support a credible 
political process in Geneva that leads unalterably to constitutional 
reform, U.N.-supervised elections, and a political transition that 
reflects the will of the Syrian people. As part of the process to 
resolve the conflict, if confirmed, I will support engaging on a U.N.-
led comprehensive refugee return plan that would allow those Syrian 
refugees who wish to return home to do so in conditions that are safe, 
voluntary, and dignified.

    Question 8. What conditions must be in place for the reestablishing 
of diplomatic relations with Syria?

    Answer. The administration's top priorities in Syria are to ensure 
the enduring defeat of ISIS and other terrorist groups, and the full 
withdrawal of Iranian forces and their proxies. We believe that neither 
of these events will happen without irreversible progress toward a 
political resolution of the conflict in accordance with U.N. Security 
Council Resolution 2254.
    We would likely not be in a position to reverse our suspended 
formal diplomatic relations until these conditions occur.

    Question 9. A recently released U.N. report says that al-Qa'ida, 
like ISIS, roughly has about 30,000 members, and is stronger now in 
places including Somalia, Yemen, South Asia and the Sahel region. Other 
reports indicate that al-Qa'ida has been decimated in Afghanistan and 
that few senior figures remain there. We have been at war against al-
Qa'ida for 17 years now. If not the death of Osama bin Laden, what is a 
tangible end state for the U.S. against al-Qa'ida?

    Answer. Today's al-Qa'ida is a fluid, diverse, and decentralized 
organization. Despite significant leadership and other network losses 
since 2001, the al-Qa'ida organization continues to pose serious 
threats to Americans and U.S. interests worldwide. Al-Qa'ida is playing 
a patient ``long game,'' and success against this adversary will take 
time and an enduring, comprehensive commitment. Success will be 
realized when the group is no longer able to conduct attacks against 
Americans and our interests. If confirmed, I will employ all of the 
Department's diplomatic tools against this dangerous network.

    Question 10. As a diplomat who has served in Jordan, Israel, 
Lebanon and Pakistan since 9/11, tell me your lessons learned from this 
conflict. What 1-2 things have worked that you will continue if 
confirmed? What 1-2 things have we gotten wrong? What new policies or 
strategy shifts will you advocate for if confirmed?

    Answer. The only long-term solution to the fight against terrorism 
is political, not military. Despite our achievements, I remain 
concerned about the lasting effects of recruitment of vulnerable 
populations resulting from the security vacuum and spillover effects of 
the conflicts in Syria, Yemen, and elsewhere. I believe that we, and 
our global partners, need to do more to build the resiliency of states 
in regions most threatened by terrorism, including through support for 
state institutions such as their security services. We also need to 
encourage international donors to continue being generous to bolster 
the resiliency of state institutions, something which I focused on 
during my time as Ambassador to Jordan and Lebanon. In Lebanon, for 
example, the United States has helped transform the Lebanese Armed 
Forces into a well-trained and agile security force that was able to 
expel the remaining pockets of ISIS from Lebanon last year. In Jordan, 
our partnership with the Jordan Armed Forces was critical to the 
campaign to defeat ISIS. Moreover, in Pakistan, through our efforts we 
have severely degraded al-Qa'ida leadership, even if we have more to do 
to press that country's leadership to end sanctuary to all terrorist 
groups. If confirmed, I look forward to continuing this discussion with 
you and your staff.

    Question 11. A recent investigation by the Associated Press found 
that the Saudi-led coalition in Yemen cut secret deals with al-Qa'ida 
fighters, paying some to leave key cities and towns and letting others 
retreat with weapons, equipment and looted cash. Hundreds more were 
recruited to join the coalition itself. These compromises and alliances 
have allowed al-Qa'ida militants to survive to fight another day--and 
risk strengthening the most dangerous branch of the terror network that 
carried out the 9/11 attacks. According to these reports, key 
participants in the pacts said the U.S. was aware of the arrangements 
and held off on any drone strikes. Further north, al-Qa'ida remains the 
most powerful military force among the Syrian opposition today, located 
in northwest Idlib province with unimpeded access to the border with 
Turkey. What is your response to the Associated Press report and these 
findings?

    Answer. I too saw the piece by the Associated Press earlier this 
month. I understand the U.S. intelligence community considers al-Qa'ida 
in the Arabian Peninsula (AQAP) to be one of the most dangerous 
branches of al-Qa'ida, and U.S. policy is to combat these terrorists. 
Extremist groups like AQAP take advantage of conflict and perpetuate 
instability to plot, launch, and inspire terror attacks against 
Americans and our regional partners. I understand the United States 
coordinates with the United Arab Emirates, Saudi Arabia, and Yemen in 
supporting a counterterrorism campaign in Yemen to disrupt the terror 
efforts of AQAP. The United States also remains committed to defeating 
al-Nusrah Front, al-Qa'ida's Syrian affiliate, which continues to seek 
the ousting of Assad and the expansion of its reach regionally.

    Question 12. Is the Yemen conflict enabling the survival of al-
Qa'ida in the Arabian Peninsula?

    Answer. The ongoing conflict in Yemen continues to create a 
security vacuum for al-Qa'ida in the Arabian Peninsula (AQAP) to 
exploit. I understand AQAP conducts attacks against the Government of 
Yemen and its Coalition partners, although Coalition counterterrorism 
operations have also rolled back AQAP's territorial control and the 
organization's freedom of movement. AQAP continues to indicate its 
intent to target the United States and is considered to be among the 
most dangerous of the al-Qa'ida affiliates. The administration firmly 
believes that preventing terrorist attacks against the homeland and 
ending the conflict in Yemen through a negotiated political settlement 
under U.N. auspices are in our national security interests.

    Question 13. Which group more directly threatens U.S. national 
security interests, the Houthis or al-Qa'ida?

    Answer. Both al-Qa'ida in the Arabian Peninsula (AQAP) and Iran, 
through the Houthis, are manipulating the security vacuum created by 
the conflict to expand their influence in Yemen and threaten U.S. 
interests. AQAP continues to indicate its intent to target the United 
States and is among the most dangerous of the al-Qa'ida affiliates. I 
understand the Houthis create instability in the region by repeatedly 
using Iranian ballistic missile and cruise missile technology, 
including to target Riyadh's international airport, Aramco facilities, 
and Red Sea shipping lanes. Over 80,000 U.S. citizens live in Saudi 
Arabia. Defeating AQAP and ISIS-Yemen and countering Iran's nefarious 
activities in the region all hinge on the resolution of this Yemen 
conflict.

    Question 14. Is the threat from al-Qa'ida in Syria now greater than 
ISIS?

    Answer. Although U.S. Government counterterrorism efforts have 
focused largely on defeating ISIS, the Department is concerned by the 
strength of al-Qa'ida elements in Syria and the growing threat they 
pose to the United States and our allies. Of particular concern is the 
al-Qa'ida presence in Idlib province in northwest Syria, which the 
Assad regime and its allies have allowed to fester. Al-Qa'ida is 
playing a patient ``long game,'' with a continued intent to launch 
external operations against the West. Success against this adversary 
will take time and an enduring, comprehensive commitment. The United 
States remains committed to defeating al-Qa'ida, al-Nusrah Front, and 
other affiliated groups in Syria and is working with key allies and 
partners on efforts to counter the threat.

    Question 15. What threat does it pose to the U.S.?

    Answer. Al-Qa'ida has long made clear that it seeks to attack the 
United States and U.S. interests. Syria-based groups linked to al-
Qa'ida, including al-Nusrah Front, Huras al Din, and Hayat Tahrir al 
Sham, share the same goals and ideology. While some of these groups are 
primarily focused on fighting the Assad regime, the Department is 
concerned about their growing capacity to undertake external operations 
that could threaten the United States, Europe, and allies in the 
region. Furthermore, the relocation of a number of al-Qa'ida leaders to 
Syria in recent years has increased the threat that Syria-based al-
Qa'ida elements pose to the United States and our friends and allies.

    Question 16. What is the strategy for reducing its presence in 
Syria?

    Answer. The Department's primary counterterrorism objective in 
Syria is to defeat ISIS and other terrorist groups, such as al-Qa'ida, 
that threaten the United States and our allies. The Department works 
with allies and partners in the region to help choke off these groups' 
external movements of and access to fighters and resources. The 
Department continues to sanction al-Qa'ida groups, leaders, and 
operatives, including internationally through the U.N. Security Council 
sanctions regime on al-Qa'ida and ISIS. The Department helps build 
partner capacity to implement these sanctions effectively. We are also 
engaging diplomatically with partners to mobilize the international 
community to focus on the al-Qa'ida presence in Syria to ensure that 
al-Qa'ida-affiliated groups in Syria do not receive funds or circumvent 
sanctions. The U.S. Government also provides assistance to communities 
in Syria resisting al-Qa'ida's control and countering their extremist 
narratives.

    Question 17. Israel passed a new basic law in July cementing the 
Jewish character of the state, altering the status of Arabic, 
previously an official language, and giving preferential treatment to 
Jewish settlement. In August, tens of thousands of Israelis 
demonstrated in Tel Aviv against the new legislation. What implications 
does the Nation-State Law have for U.S. -Israel relations and U.S. 
assistance programs like the Middle East Peace Initiative, which builds 
capacity in the minority communities most affected by the law?

    Answer. I am aware of the ``Basic Law: Israel as the Nation-State 
of the Jewish People,'' passed by the Israeli Knesset in July and the 
political conversation about that legislation inside Israel. If 
confirmed, I look forward to discussing the issue further with members 
of Congress.

    Question 18. What is the status of U.S. aid to the Palestinians, 
including $200 million in relief aid ``under review,'' by the State 
Department, and the annual U.S. contribution to UNRWA?

    Answer. I understand that U.S. assistance to the West Bank and Gaza 
and U.S. contributions to the U.N. Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA) are under review by the 
administration to ensure they advance U.S. foreign policy and national 
security interests and provide value to the U.S. taxpayer. I support 
ensuring U.S. foreign assistance meets those criteria. I also 
understand the review remains underway, aside for $61 million in 
security and demining assistance to the Palestinian Authority, which 
the administration has previously announced will proceed. While I have 
not participated in the review to date, if confirmed, I look forward to 
briefing Congress on the results at its conclusion.

    Question 19. Do you believe that U.S. assistance to the 
Palestinians should be resumed?

    Answer. I support ensuring that U.S. foreign assistance advances 
U.S. foreign policy and national security interests and provides value 
to the U.S. taxpayer, which I understand is the purpose of the review. 
However, I have not been briefed on the review of U.S. assistance to 
the West Bank and Gaza and U.S. contributions to the U.N. Relief and 
Works Agency for Palestine Refugees in the Near East (UNRWA), and so am 
not in a position to make a recommendation on the review's conclusion.

    Question 20. What will be your recommendation to the administration 
regarding this funding?

    Answer. As I have not participated in the review to date, I am not 
in a position to preview a recommendation to the administration at this 
time.

    Question 21. The Trump administration announced a ``conditions-
based,'' approach to Afghanistan in its South Asia policy, and reports 
recently cite a shifting U.S. focus to maintaining control of key 
population centers, an approach critics say will return large swaths of 
territory to the Taliban. We have spent $750 billion of U.S. taxpayer 
money on the military campaign in Afghanistan alone. What specific 
outcomes is the State Department working towards in Afghanistan over 
the next five years and how will these be measured?

    Answer. Our approach clearly identifies measurable goals and 
objectives to reinforce the President's South Asia strategy. Under the 
conditions-based approach of the President's South Asia Strategy, we 
seek the cessation of violence, the Taliban's rejection of terrorism, 
and respect for the Afghan constitution. Through military, diplomatic, 
and economic lines of effort, we are intensifying pressure on the 
Taliban to bring them to the negotiation table. Ultimately, a 
sustainable end to the conflict requires a political settlement 
negotiated between the Afghan Government and the Taliban that ensures 
Afghanistan will never again serve as a safe haven for terrorists to 
attack the United States or its allies. There is no military solution, 
and the United States is prepared to engage, facilitate, and 
participate in these talks.
    The State Department supports these goals through a coordinated 
interagency strategy that includes extensive and thorough monitoring 
and evaluation plans for all programs. U.S. assistance supports the 
Afghan Government as it intensifies its reform efforts, combats 
corruption, and promotes inclusive governance for all Afghans. As the 
Afghan Government becomes more credible, efficient, and self-reliant 
and burden sharing among international donors increases, U.S. 
assistance levels to Afghanistan will continue to gradually decline.

    Question 22. Despite its brevity, the recent three-day ceasefire 
injected a sense of hopefulness into the long dormant Afghan peace 
process. What are your takeaways from this ceasefire?

    Answer. The overlap between the Afghan Government and Taliban 
ceasefires brought peace to Afghanistan during the Eid al-Fitr holiday 
in June, with Afghan soldiers and Taliban praying together, side-by-
side. This situation showed that many Taliban fighters want peace as 
much as their fellow Afghans. The Taliban leaders who live outside 
Afghanistan should respond positively to President Ghani's offer to 
negotiate.

    Question 23. What positive incentives are there for the Taliban to 
agree to a peace process?

    Answer. In his speech to the Kabul Peace Conference in February, 
President Ashraf Ghani offered peace talks without conditions to the 
Taliban, noting that his government supported opening an office for the 
Taliban leadership; providing Taliban leaders with passports and 
allowing them to travel freely; cooperating in lifting sanctions 
against them; and providing them with access to media and the 
resettlement of their families. Ghani also noted that a peace deal 
could include programs for economic and social development, including 
the participation of fighters returning from the battlefield. The 
United States supported Ghani's speech and supports the Afghan 
Government's efforts toward peace. As Secretary Pompeo noted in June, 
the United States seeks a negotiated settlement between the Afghan 
Government and the Taliban and is prepared to support, facilitate, and 
participate in talks between them.

    Question 24. Why will 14,000 forces be able to pressure the Taliban 
to the negotiating table when 140,000 could not during the surge?

    Answer. Military pressure is only one of multiple lines of effort 
we are pursuing to create conditions to bring the Taliban to the 
negotiating table. We are also using financial and diplomatic pressure, 
demanding an end to the sanctuary the Taliban have enjoyed for decades 
in Pakistan using our broad array of policy tools, and encouraging 
fighting elements within the Taliban to consider local arrangements to 
deescalate the levels of violence.
    The Afghans are leading the military effort, and they are a much 
more capable fighting force than they were in 2011 at the peak of the 
international presence. The Afghan Government assumed full 
responsibility for security of its country in January 2015. Since that 
time, the capabilities of Afghan forces have steadily improved, with 
Afghan forces now planning and executing independent operations. The 
Afghan National Defense and Security Forces (ANDSF) is increasingly 
successful in its use of air power; the Afghan Air Force is striking 
Taliban fighters, drug labs, and ISIS-K members with far greater 
ferocity.
    International forces in Afghanistan enable the success of the 
Afghan security forces in leading the fight. We are making clear to the 
Taliban that they cannot wait us out. We will not announce a timeline 
for withdrawal or set arbitrary troop levels. With that commitment, we 
expect to leverage our resources to enable the success of the Afghan 
security forces. As the Taliban realize they will not be able to 
achieve a military victory, the Afghan Government will be in a better 
position to come to a political agreement with the Taliban that 
achieves peace. Our ultimate goal in Afghanistan is a negotiated 
political settlement between the Afghan Government and the Taliban.

    Question 25. In this position, how would you ensure that the 
diplomatic effort is more effectively married up with the military 
effort than in the past?

    Answer. Ambassador Bass and General Nicholson have already 
established an interagency Peace and Reconciliation Action Group (PRAG) 
to ensure unity of effort in the field and with Washington. If 
confirmed, I will continue to work with Afghan, regional, and 
international partners to exert military and diplomatic pressure on the 
Taliban to join a peace process that ends the war in Afghanistan with a 
sustainable political settlement that protects U.S. interests. Any 
political settlement in Afghanistan must involve negotiations between 
the Taliban and the Afghan Government. The United States can support 
and facilitate these negotiations, but it cannot substitute for the 
Afghan Government and the Afghan people. As of August 16, 2018, the 
Taliban have not responded to the Afghan Government's peace offer and 
their campaign of violence continues. The Taliban must come to 
understand that they can only advance their objectives at the 
negotiating table, not on the battlefield.

    Question 26. China and the U.S. clearly overlap in how they view 
Afghanistan. What role do you think China can and should play in 
Afghanistan, including with respect to achieving a political settlement 
of the Afghan conflict?

    Answer. The United States and China share some common goals in 
Afghanistan: to ensure regional stability, especially by reducing the 
threat posed by terrorist organizations operating in the region. We 
agree there is not a military solution to the conflict but rather the 
best avenue to achieve stability is through a negotiated political 
settlement between the Afghan Government and the Taliban. We welcome an 
effective Chinese role in supporting an Afghan-led peace process, 
including by urging the Taliban to negotiate with the Afghan 
Government. We will continue to work closely with the Chinese 
bilaterally and in constructive multilateral fora to bring the Taliban 
to the negotiating table. China can also play an important role in 
encouraging the Government of Pakistan to be a more constructive 
partner in our efforts to find a political solution to the Afghan 
conflict.

    Question 27. Russia and Iran are likely increasing their support 
for the Taliban in part to gain leverage over the U.S. in their 
geopolitical competition with us. In this role, how will you balance 
achieving Iranian or Russian cooperation in Afghanistan with exerting 
maximum pressure on Russia and Iran to end their interference with U.S. 
interests in the Middle East?

    Answer. We are aware of reports that Russia and Iran continue to 
provide weapons and other support to the Taliban. All countries should 
desist from such activity and support an Afghan peace process that 
includes direct negotiations between the Taliban and the Afghan 
Government. In direct and indirect conversations with Russia and Iran, 
we consistently emphasize that our security interests in Afghanistan 
are aligned and that we have a shared interest in eliminating ISIS, al-
Qa'ida, and other terrorist organizations from Afghanistan as well as 
in preventing any future use of Afghan territory as a terrorist safe 
haven. We are committed to defending our interests in Afghanistan and 
the Middle East, just as we are in other parts of the world.
Attacks on Diplomatic Personnel in Cuba and China
    Question 28. Reports of mysterious illnesses among our officers and 
their families in Havana and Guangzhou have left many in Congress 
worried about the safety of our diplomats abroad, especially should it 
be confirmed that these were state sponsored attacks. Deputy Secretary 
Sullivan is leading an effort to address this issue, including sending 
investigators to both posts. Please provide an update on these 
investigations and detail the measures the Department is taking to 
ensure the safety of our diplomats and their families from this new 
threat. Have there been any additional confirmed attacks since my 
office was last updated in June 2018?

    Answer. If confirmed, the safety and security of our personnel 
overseas would be my top priority. Investigations into the health 
incidents affecting our personnel in Havana and Guangzhou are ongoing. 
As a result of the unexplained health attacks in Havana, the Department 
reduced our staffing levels and modified the Embassy's status to an 
unaccompanied post. The Department has ensured protocols are in place 
at our missions worldwide to respond to unexplained health security 
incidents, should they occur elsewhere. To date, 26 personnel and 
family members in Havana have been injured. In May, a U.S. Government 
employee stationed in Guangzhou, China was medically confirmed to have 
similar symptoms.

    Question 29. What are your top three priorities for Latin America, 
and what level of engagement will you put on this critical region, 
including to counter growing Chinese presence and influence?

    Answer. If confirmed, I would prioritize advancing democratic 
governance, security, and economic prosperity, working with our 
partners in the region. I would seek a constructive and results-
oriented relationship with China where our regional goals are 
consistent. At the same time, we will make certain that China's 
activities in the region are not undertaken at our expense. I would 
work to ensure that China's economic engagement meet high international 
standards of transparency, adherence to anti-corruption standards, debt 
sustainability, labor rights, environmental best practices, and the 
needs and concerns of local communities.

    Question 30. While observers of Honduras' December 2017 elections 
cited irregularities in polling significant enough to cause the 
Organization of American States to call for new elections, the State 
Department recognized President Hernandez's win, blunting efforts to 
encourage dialogue between his party and the opposition. Attempts at 
reconciliation since have foundered, and government security forces 
have responded with violence to protests against Hernandez's 
reelection, killing dozens. Honduras remains unstable and its democracy 
in peril. At the same time, the State Department recommended to the 
Department of Homeland Security that it end TPS for the tens of 
thousands of Hondurans living and working in the United States, despite 
the significant negative impact on bilateral relations, the danger to 
returnees and their U.S. citizen children, and the likelihood of 
decreased compliance with immigration control measures the Department 
frankly acknowledged in its recommendation. While the original 
justification for TPS--Hurricane Mitch in 1998--may be over, the 
current conditions in Honduras are more dangerous now. How will you 
work to support political dialogue and accountability in Honduras?

    Answer. I understand the Department acknowledged the election of 
President Hernandez after no evidence of specific and sufficient fraud 
emerged that would have changed the outcome of the election or 
necessitated a new one. I also understand the Department consulted with 
electoral missions monitoring the election, the European Union, Mexico, 
Canada, and the Honduran Supreme Electoral Tribunal. If confirmed, I 
will encourage the Honduran Government to make necessary electoral 
reforms to strengthen confidence in its institutions. I will also urge 
the Government to make the U.N. facilitated national dialogue a top 
priority and ensure accountability for those killed in post-electoral 
violence.

    Question 31. As long as the decision to end TPS stands, how will 
you work with the Honduran Government to absorb these individuals and 
make sure their return does not undercut stability in Honduras or 
result in new waves of migration here?

    Answer. If confirmed, I will work with our embassy to strengthen 
Honduras' ability to reintegrate migrants, including TPS returnees. I 
will continue to promote U.S. foreign assistance programs in Honduras 
that disrupt transnational criminal organizations, promote citizen 
security, deter illegal immigration, and promote sustainable economic 
growth by addressing the underlying causes of insecurity, impunity, and 
lack of economic opportunity--the main drivers of illegal immigration. 
I will also ensure our embassy stands ready to provide appropriate 
consular services for U.S. citizens, including U.S. citizen children of 
TPS beneficiaries.

    Question 32. Over the last few weeks, opposition to a change to the 
social security system and general discontent with President Ortega's 
Government sparked some of the worst rioting and protests in Nicaragua 
in recent memory. Are these protests an isolated incident, or a 
harbinger of further turmoil and destabilization in the country?

    Answer. Over recent months, more than 300 Nicaraguans have been 
killed; hundreds have been detained and remain missing, and thousands 
have fled the country. While violent clashes in the streets have 
diminished in recent weeks, the Ortega Government, and armed groups 
loyal to it, continue to intimidate and arbitrarily detain hundreds of 
individuals. It is my understanding the framework for national dialogue 
is already in place. The only obstacle to progress is President 
Ortega's unwillingness so far to negotiate in good faith the legitimate 
issues that the Catholic Church and other civil society leaders have 
put on the table in the Nicaraguan church-led dialogue.

    Question 33. What role can the U.S. play to limit violence between 
government forces and protesters?

    Answer. It is my understanding the United States is working to 
raise the costs on the Nicaraguan Government thus pressing it to cease 
immediately all government-sponsored violence. The Department continues 
to help expose and hold accountable those responsible for the violence 
and intimidation campaign by imposing visa restrictions on Nicaraguans 
responsible for or complicit in human rights abuses or undermining 
democracy in Nicaragua. Placing financial sanctions under the Global 
Magnitsky Human Rights Act and working closely with our regional 
partners to maintain international monitoring of the situation and 
promote democratic solutions.

    Question 34. Venezuela remains in disarray politically, 
economically and socially. The economic and humanitarian crisis is the 
worst the hemisphere has seen in modern history, estimates are 10 
percent of the country's population, or four million Venezuelans, have 
already left the country, and that number is likely to increase 
rapidly. Given that the Venezuelan Government is not allowing external 
actors to provide humanitarian aid, what more can and should the U.S. 
be doing to pressure the Government to accept such assistance and to 
help Venezuela's neighbors address the massive wave of Venezuelan 
refugees?

    Answer. Responding to the crisis in Venezuela requires a whole of 
government approach. This includes the continued provision of robust 
humanitarian assistance to Venezuelans throughout the region and 
continued diplomatic engagement with regional partners. If confirmed, I 
will coordinate closely with our regional partners who have assumed the 
burden of assisting those fleeing the Maduro regime and pursue policies 
that pressure the regime to address the root causes of the crisis and 
accept humanitarian assistance.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Hon. David Hale by Senator Edward J. Markey

China and Fentanyl
    Question 1. Mr. Hale, in 2017, more than 29,000 Americans died from 
an overdose of fentanyl or another synthetic opioid, which are being 
trafficked into the United States principally from China and Mexico 
through the mail and consignment carriers. If confirmed to this 
position, what advice would you provide to the Secretary about how best 
to bring State Department resources to bear to persuade or pressure 
foreign governments--including the Chinese Communist Party--to crack 
down on fentanyl and other synthetic opioids and their shipment?

    Answer. The rise in U.S. fentanyl-related deaths has created 
greater urgency for close cooperation with China, a major source of 
illicit fentanyl and its precursor chemicals. President Trump and 
President Xi have discussed ways to enhance coordination to counter the 
drug trade, including through expanded law enforcement cooperation and 
information exchange. I understand the Department and other U.S. 
agencies have regularly engaged Chinese counterparts to press for 
further progress on this critical issue. China has domestically 
controlled 143 substances at the United States' request, including five 
key fentanyl analogues and carfentanil. If confirmed, I will advise the 
Secretary to continue engaging China to stem the flow of synthetic 
opioids to the United States. I will also support foreign assistance 
efforts that expand global capacity to detect and interdict synthetic 
drugs shipped through the mail and express consignments.

    Question 2. If you are confirmed, how would you weigh this issue 
against others in the bilateral relations with China and how would you 
ensure that Beijing is fully cooperating in efforts to regulate, 
prosecute, and otherwise hinder the production of fentanyl and other 
synthetic opioids? Would you commit to making this issue one of the top 
points you communicate to your Chinese counterparts when you engage 
with them?

    Answer. President Trump has prioritized North Korea, trade, and 
counternarcotics in the U.S. relationship with China. The Chinese 
Government has worked closely with U.S. law enforcement authorities to 
schedule fentanyl analogues and crack down on traffickers. China must 
do more in these areas, especially in controlling the entire class of 
fentanyl that contributes so much to the U.S. opioid crisis. If 
confirmed, I will promote improved law enforcement cooperation with 
China that combats the devastating effects fentanyl and other drugs are 
having on our communities.
U.S. China Policy
    Question 3. Getting U.S. China policy right is critical for U.S. 
prosperity and security. China is the biggest strategic competitor to 
the United States and seeks to gain advantages where it senses 
weakness. How can the United States better protect a free and open 
liberal international order, intellectual property rights, and a 
democracy free from Chinese Government influence without overly risking 
a trade war, or worse, military conflict?

    Answer. We seek a results-oriented, constructive bilateral 
relationship with China. We have areas of cooperation and of tension; 
our relations are not zero sum. When we disagree, we raise our concerns 
consistently, forcefully, and forthrightly. We will work closely with 
allies and partners to strengthen the rules-based order and implement 
President Trump's vision of a free and open Indo-Pacific. A stronger 
U.S. posture in the Indo-Pacific combined with constructive bilateral 
engagement with China will enable the United States to better safeguard 
our interests.

    Question 4. If confirmed, how will you work with other U.S. 
Government agencies and like-minded governments to mitigate China's 
``influence operations,'' around the world?

    Answer. We will not shy away from speaking forthrightly about and 
contesting policies and actions that aim to undermine the rules-based 
international order. Countering foreign interference in our democratic 
processes, institutions, and society--be it from China or another 
foreign actor--is a critical priority for the United States and the 
State Department. Acts of foreign interference can limit or shape 
otherwise independent judgments, undermine confidence in our 
institutions, and impact market-based decision-making by the private 
sector. If confirmed, I will coordinate with relevant U.S. Government 
agencies, allies and partners around the world to monitor, and as 
appropriate, react to Chinese activities abroad.

    Question 5. Following the Singapore Summit, Kim Jong Un--as well as 
our allies and partners around the world--heard statements from the 
United States, China, and Russia that suggested that the international 
community can relax sanctions enforcement on North Korea. Do you 
believe that China and other countries are prematurely rewarding North 
Korea by relaxing sanctions in exchange for engagement rather than 
relaxing sanctions in exchange for denuclearization?

    Answer. All U.N. Member States are required to implement the 
obligations contained in U.N. Security Council sanctions resolutions in 
good faith, and we expect them all to do so. The United States 
continues to work with governments around the world to ensure all 
nations are fully implementing these obligations. The pressure campaign 
will continue until the DPRK denuclearizes.
    The State Department is engaging countries around the world for 
action to pressure the DPRK and ensure global compliance with U.N. 
Security Council resolutions. We are cooperating with many countries, 
including China, to take decisive action against entities involved in 
DPRK sanctions evasion activity.
    If confirmed, I will not hesitate to support unilateral action 
against entities that continue to support the DPRK regime in 
contravention of U.N. sanctions.

    Question 6. If so, what incentives remain for North Korea to 
negotiate in earnest, if the international community is prematurely 
relaxing sanctions?

    Answer. Our goal is clear--we must achieve the final, fully 
verified denuclearization of the DPRK as agreed to by Chairman Kim. 
Should the DPRK follow through on its commitments to denuclearization, 
the United States looks forward to eventually helping North Korea 
develop economically and earn the respect of the world. The 
international community cannot let up on pressure until the DPRK 
denuclearizes.

    Question 7. Which countries still provide the greatest revenue 
streams to North Korea?

    Answer. I have not yet been fully briefed on this issue, but I know 
we have engaged all members of the international community on the 
importance of maintaining diplomatic and economic pressure on North 
Korea to achieve the final, fully verified denuclearization of the 
DPRK. We expect all countries to implement the U.N. Security Council 
resolutions and to cooperate fully with the 1718 committee and the 
Panel of Experts.

    Question 8. When executing the so-called pressure campaign, how 
would you prioritize which countries would receive the greatest 
pressure?

    Answer. We continue to engage all members of the international 
community on the importance of downgrading diplomatic and economic 
engagement with North Korea to achieve the final, fully verified 
denuclearization of the DPRK.

    Question 9. What should the State Department's strategy be for 
ensuring countries around the world maintain pressure on North Korea as 
long as it is not making significant and tangible progress toward 
denuclearization?

    Answer. As the Secretary has made clear, pressure is what opened 
the door for diplomacy, and pressure will ensure the DPRK's final, 
fully verified denuclearization. If confirmed, I plan to call on 
countries to strictly implement all sanctions, including the complete 
shutdown of prohibited ship-to-ship transfers to DPRK-flagged vessels 
of petroleum destined for North Korea.
Burma and Trafficking in Persons
    Question 10. Burma was downgraded to Tier 3 in this year's 
trafficking in persons report because the government is not making 
significant efforts to meet minimum standards for the elimination of 
human trafficking. The annual report also noted ``reports that 
government officials were complicit in both sex and labor 
trafficking.'' How combatting trafficking in persons should be 
addressed in the context of Burma's myriad human rights issues?

    Answer. Protecting fundamental human rights and holding 
perpetrators of trafficking and abuses to account is integral to the 
success of Burma's democracy. Human trafficking in Burma deprives 
scores of Burmese of their dignity and freedom, undermines the region's 
security, and enriches transnational criminals. In order to promote 
human rights and accountability in Burma, if confirmed I will support 
the State Department's efforts to combat human trafficking in Burma, 
including to cease unlawful recruitment and use of child soldiers by 
both the Burmese military and ethnic armed groups. Further, I will 
support efforts to stop the Government of Burma from punishing 
trafficking victims, and to curtail any official involvement in 
compelling civilians to perform any type of forced labor.
Iran
    Question 11. Mr. Hale, if confirmed, you will play a large role in 
executing the Trump administration's strategy toward Iran. I look 
forward to your answers to the following questions: Please explain in 
detail what this strategy is and the role of the newly created Iran 
Action Group.

    Answer. It is my understanding that the newly created Iran Action 
Group will drive the implementation of the administration's Iran 
strategy, which includes increasing economic pressure on the regime 
through the re-imposition of economic sanctions and countering Iran's 
regionally destabilizing activities. The Iran Action Group will be 
housed within the State Department and work closely with the White 
House and the interagency. The group is committed to a whole-of-
government effort to change the Iranian regime's behavior. The end goal 
is to achieve a deal that comprehensively addresses the Iranian 
regime's malign behavior--not just its nuclear program but also its 
ballistic missile program and support to terrorism.

    Question 12. Please list which countries specifically have 
committed to re-impose now-waived sanctions or impose new sanctions on 
Iran as part of the Trump administration's efforts to exert pressure on 
Iran.

    Answer. Administration officials continue to discuss our Iran 
policy with our allies and partners around the world and the 
implications of the re-imposition of sanctions previously lifted or 
waived under the Joint Comprehensive Plan of Action. I understand that 
companies are aware of the inherent risks of doing business in a 
country where so much of the economy is controlled by the Islamic 
Revolutionary Guard Corps and where billions of dollars have been used 
to support terrorism in the region and around the world. If confirmed, 
I will continue to work with our partners who share our concern and the 
urgency of addressing the full range of Iranian malign behavior.

    Question 13. Does the Trump administration plan to issue 
``significant reduction,'' waivers when it re-imposes sanctions 
contained in the FY 2012 National Defense Authorization Act on 
countries importing Iranian crude oil?

    Answer. As part of the campaign to exert maximum economic pressure 
on Iran, the administration is completely committed to the goal of 
reducing to zero Iran's revenues from crude oil sales. The 
administration is asking all current purchasers of Iranian crude oil to 
end their purchases as quickly as possible, ideally by November 4. The 
administration is prepared to work with countries that are reducing 
their imports on a case-by-case basis.
Foreign Aid
    Question 14. In his State of the Union speech, President Trump 
asked Congress to pass legislation to help ensure U.S. foreign 
assistance dollars ``always serve American interests, and only go to 
America's friends.'' How would a more transactional approach to U.S. 
foreign aid benefit U.S. interests?

    Answer. State Department and USAID foreign assistance programs 
protect the American people, promote U.S. prosperity, and advance 
American interests and values. I believe it is important to assess our 
foreign assistance based on a number of factors with the top reason 
being that foreign assistance should serve American interests. 
Countries' support for U.S. priorities is one indicator to consider, 
but there are other important factors to consider as well, including 
our national security and economic interests.

    Question 15. How would such a policy change shape U.S. foreign 
assistance in the Asia-Pacific?

    Answer. State Department and USAID foreign assistance programs, 
including those in the Asia-Pacific, protect the American people, 
promote U.S. prosperity, and advance American interests and values. 
Foreign assistance funds the administration's strategic priorities in 
the Asia-Pacific by supporting U.S. treaty allies and emerging 
strategic partners to promote shared national security and economic 
interests. I believe it is important to assess our foreign assistance 
based on a number of factors with the top reason being that foreign 
assistance should serve U.S. interests. Countries' support for U.S. 
priorities is one indicator to consider, but there are other important 
factors to consider as well, including our national security and 
economic interests.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Hon. David Hale by Senator Jeff Merkley

    Question 1. August 25 is the one-year anniversary of the latest 
wave of violence and start of ethnic cleansing by the Burmese military 
again the Rohingya. The Bureau of Democracy, Human Rights, and Labor is 
now preparing a report that will analyze over 1,000 interviews with 
Rohingya civilians, documenting the atrocities to which they have been 
subjected. The evidence collected in this report will be critical in 
holding Burmese military officials accountable. Secretary Pompeo made a 
commitment in testimony before the Senate Foreign Relations Committee 
on May 24 to publicly release the report immediately upon its 
conclusion. When can we expect the release of this report and will it 
also be sent to the State Department Legal Advisor for a determination 
about war crimes and genocide?

    Answer. I share your strong belief that Burma's security forces 
must respect the human rights of all persons within its borders, and 
hold accountable those who fail to do so. Secretary Pompeo has said he 
would like to make the report available to the public. If confirmed, I 
will support State Department efforts to promote accountability for 
human rights abuses against ethnic and religious minority groups across 
Burma, including for those that occurred in Rakhine State.

    Question 2. In June, the European Union (EU) and Canada imposed 
sanctions on seven senior military officials from Burma for their 
involvement in ethnic cleansing against the Rohingya while to date, the 
United States has only sanctioned one. Why did the United States limit 
its initial sanctions to one Burmese general under the Global Magnitsky 
Human Rights Accountability Act? Do you believe the administration 
should follow the EU and Canada's lead and pursue additional sanctions 
against other senior Burmese military officials?

    Answer. The United States is engaged in a whole-of-government 
response to the humanitarian and human rights aspects of the crisis in 
Rakhine state, as well as serious human rights abuses in other areas of 
Burma. In December 2017, we sanctioned former Major General Maung Maung 
Soe due to his role in serious human rights abuses against Rohingya in 
Rakhine State. Following our lead, our Canadian and EU partners imposed 
their own sanctions on Burmese security officials in February and June. 
Administration officials have publicly discussed the possibility of 
further targeted sanctions, among other actions, against those 
responsible for or associated with serious human rights abuses.

    Question 3. The administration should be commended for pursuing 
potential openings for peace talks with the Taliban, as ending the war 
in Afghanistan should be a top priority. Yet, despite the importance of 
these talks, the administration has yet to nominate an Assistant 
Secretary of State for South and Central Asian Affairs (SCA). When can 
we expect a nominee for SCA, and who at State Department is leading 
peace efforts in Afghanistan in the meantime?

    Answer. As Senior Bureau Official, Ambassador Alice Wells is 
focused on pursuing a negotiated settlement to the conflict in 
Afghanistan. She has a dedicated team that focuses exclusively on 
initiating and supporting a peace process and coordinates with other 
regional and functional experts across the interagency of the U.S. 
Government. Because of her broader responsibilities relating to other 
countries in the region, she is well positioned to ensure that U.S. 
engagement in South and Central Asia is both coherent and synchronized 
among decision-makers in Washington. Ambassador Wells works closely 
with Ambassador Bass and General Nicholson, who have established an 
interagency Peace and Reconciliation Action Group to ensure unity of 
effort in the field and with Washington. She has established a strong 
foundation for success to turn over to the eventual nominee, once he/
she is nominated and confirmed.

    Question 4. How has the recent fighting in Ghazni affected the 
potential for serious negotiations between the Taliban and the Afghan 
Government?

    Answer. The fighting in Ghazni has not changed the potential for 
serious negotiations between the Afghan Government and the Taliban. 
President Ghani's offer to the Taliban of talks without preconditions, 
which he first articulated in February at the Kabul Peace Conference, 
underscores that the Afghan Government is prepared for peace. The 
United States is prepared to support, facilitate and participate in 
these talks.

    Question 5. The United States is directly involved in the Saudi 
Arabia-led military campaign in Yemen that started in March 2015. The 
State Department's Human Rights Report stated, ``Saudi-led coalition 
airstrikes in Yemen resulted in civilian casualties and damage to 
infrastructure on multiple occasions.'' On August 9 a Saudi air strike 
reportedly killed at least 51 civilians, including 40 children. The 
number of Senators voting to halt the sale of precision guided 
munitions and other weapons to Saudi Arabia increased this year over 
previous years' votes. What are the circumstances in which you think 
the United States should suspend or curtail its military assistance to 
Saudi Arabia? Does the Department of State believe that the August 9 
airstrike noted above was in accordance with international humanitarian 
law and relevant provisions of international human rights law? How did 
you weigh the potential for civilian casualties when reviewing U.S. air 
strikes in Pakistan?

    Answer. I am concerned by the attack of August 9 that hit a school 
bus, reportedly killing a large number of civilians, including 
children. I look forward to reviewing the results of the investigation, 
which must be transparent and thorough, that I understand the Saudis 
are undertaking. I understand that the United States consistently urges 
Saudi Arabia, as we do with other partners, to take all feasible 
measures to reduce the likelihood of civilian casualties, take 
appropriate steps when such casualties occur, and draw lessons from 
operations to enhance the protection of civilians in accordance with 
international humanitarian and human rights laws.

    Question 6. This administration is currently withholding all U.S. 
relief aid that Congress previously appropriated for Palestinian 
civilians in Gaza and the West Bank in what is reported to be an 
attempt to gain leverage for future Middle East peace negotiations. The 
administration has also cut off all U.S. funding to the United Nations 
Relief and Works Agency (UNRWA). Given your prior experience with the 
Middle East peace process, do you believe cutting off humanitarian 
assistance to the Palestinians will improve the prospects for peace? 
Please explain why or why not. What could the impact be on stability in 
the Middle East and on Israel's security of a prolonged cut-off in 
humanitarian aid? Do you believe a worsening humanitarian situation 
could lead to more radicalization within Palestinian communities?

    Answer. I understand that U.S. assistance to the West Bank and Gaza 
and U.S. contributions to UNRWA are under review by the administration, 
aside from $61 million in security and demining assistance to the 
Palestinian Authority (PA), which the administration has previously 
announced will proceed, to ensure they advance U.S. foreign policy and 
national security interests and provide value to the U.S. taxpayer. I 
support ensuring that U.S. foreign assistance meets those criteria. 
While I have not participated in the review to date, I look forward to 
briefing Congress on the results at its conclusion.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Hon. David Hale by Senator Cory A. Booker

    Question 1. I had the opportunity to go to Afghanistan in May and 
met with General Nicholson and Ambassador Bass. We have been in 
Afghanistan for nearly two decades and I heard the word ``stalemate,'' 
again and again to describe the state of play there. On Friday, the 
Taliban took over parts of Ghazni City, a strategic city less than 100 
miles from the capital, Kabul, killing dozens of Afghan soldiers and 
police officers. This week, another U.S. service member serving in 
Afghanistan died from a roadside bomb in Helmand. Meanwhile, a report 
last week raises serious questions about our morphing, seemingly 
unending presence in Afghanistan when the mission to counter Al-Qaeda, 
whose Sept. 11 terrorist attacks provoked the U.S. invasion in 2001, 
has shrunk in relation to newer threats such as ISIS. Do you believe 
there is a military solution to this conflict?

    Answer. There is no purely military solution to this conflict. As 
President Trump said last August, ``Military power alone will not bring 
peace to Afghanistan or stop the terrorist threat arising in that 
country.'' The administration's overall goal for Afghanistan is to 
support a negotiated political settlement between the Government and 
the Taliban. To this end, we are using all tools, including military 
and diplomatic ones, in concert, to support Afghan efforts to secure 
peace.

    Question 2. What concerns do you have, if any, that our initial 
mission to go after the perpetrators of 9/11 has morphed into a mission 
in Afghanistan that Congress has not authorized?

    Answer. I believe the South Asia Strategy is the right approach to 
a complex problem. The core of our strategy in Afghanistan is to ensure 
Afghan territory is never again used as a safe haven from which ISIS, 
al Qaeda, and other terrorist organizations can threaten the United 
States or our interests. U.S. assistance appropriated by Congress is 
used to build partnerships and capacity to further these goals and set 
the conditions for a political settlement to end the Afghan conflict. 
Military training has enabled the Afghan National Defense and Security 
Forces to develop stronger capabilities--namely the much improved and 
expanded Afghan Special Forces and Air Force--and demonstrate to the 
Taliban that there is no military solution to the conflict. Civilian 
assistance makes critical contributions to improved governance, health, 
education, women's empowerment, and judicial reform, along with anti-
corruption, sustainable economic growth, infrastructure, and counter-
narcotic efforts.

    Question 3. I understand that the U.S. will seek to directly engage 
the Taliban in negotiations. What does the U.S. hope to gain from 
direct talks? Do you believe direct negotiations between the U.S. and 
Taliban will lead to a reconciliation between the Taliban and the 
Afghan Government?

    Answer. The core goal of the United States in Afghanistan is a 
peace agreement that brings stability to Afghanistan and prevents ISIS, 
al Qaeda, and other terrorist organizations from establishing safe 
havens there. The only way to reach this goal is through an inclusive 
political settlement between the Afghan Government and the Taliban, and 
the United States stands ready to support, facilitate, and participate 
in negotiations to this end. The United States is using all tools, 
including military and diplomatic ones, to press the Taliban to begin 
formal negotiations with the Afghan Government, and we are exploring 
all avenues to advance a peace process in close consultation with the 
Afghan Government.

    Question 4. I was pleased that Ambassador Bass said that he would 
like to have a dedicated office of technical experts working toward a 
peace process. Would you support appointing and fully supporting a 
senior official mandated to focus on negotiating a settlement of the 
conflict at the Embassy?

    Answer. Our immediate focus is on using multiple lines of effort to 
make it possible for the Afghan Government and the Taliban to engage in 
direct negotiations with U.S. participation. Ambassador Bass and his 
team are fully integrated into this effort, which involves diplomatic 
engagement with multiple countries and is led from Washington by Senior 
Bureau Official of the South and Central Asia Bureau Ambassador Alice 
Wells. She has a dedicated team that focuses exclusively on initiating 
and supporting a peace process and coordinates with other regional and 
functional experts across the Department. Because of her broader 
responsibilities relating to other countries in the region, she is well 
positioned to ensure that U.S. engagement in South and Central Asia is 
both coherent and synchronized among decision makers in Washington. 
Ambassador Wells works closely with Ambassador Bass and General 
Nicholson, who have established an interagency Peace and Reconciliation 
Action Group to ensure unity of effort in the field and with Washington 
in support of Afghan peace.

    Question 5. Do you believe Pakistan has done enough to counter 
insurgent groups that have found safe haven in their country?

    Answer. As part of the South Asia strategy, the President has made 
it abundantly clear that our approach to Pakistan has changed, and that 
Pakistan must deny the ability of the Taliban and all terrorist groups 
to operate from Pakistani soil. We have repeatedly conveyed the message 
to Pakistan's leadership that there will be no business as usual in our 
relationship until we see sustained, decisive efforts on their part to 
play a more constructive role in the region, which we have not observed 
yet. While Pakistan has taken some constructive steps, they have not 
been sufficient, and we will continue to press Pakistan using our broad 
array of tools to achieve the outcome we demand.

    Question 6. Do you believe that Pakistan has demonstrably changed 
its behavior since President Trump suspended nearly all U.S. security 
assistance to Pakistan?

    Answer. As part of the South Asia strategy, the President has made 
it abundantly clear that our approach to Pakistan has changed, and that 
Pakistan must deny the ability of the Taliban and all terrorist groups 
to operate from Pakistani soil. Our suspension of nearly all U.S. 
security assistance is only one element of a broader effort to call on 
Pakistan to end the use of its territory as sanctuary by terrorist 
groups and to work with us to achieve a negotiated political settlement 
to the conflict in Afghanistan. While Pakistan has taken some initial 
constructive steps, they have not been sufficient, and we continue to 
convey to Pakistan's leadership that there will be no business as usual 
in our relationship until we see sustained, decisive efforts on their 
part to play a more constructive role in the region. We have a wide 
array of tools at our disposal, and the administration has a robust 
policy process to determine how and when to employ them to convince 
Pakistan it has no option but to comply with our demands.

    Question 7. You currently serve as our Ambassador to Pakistan, 
where largely Chinese work crews are building a port, highways, 
railways, power plants, and others projects as part of China's Belt and 
Road Initiative. Throughout Africa, China is building infrastructure, 
and is one of the largest contributors to foreign direct investment in 
Africa, contributing one-sixth of all lending to Africa. What do you 
see as the strategic implications of the Belt and Road Initiative for 
host countries, for China, and for the United States?

    Answer. The United States shares host country concerns about 
corruption, debt sustainability, good governance, and the environmental 
effects of BRI projects. We also want to ensure a level playing field 
for U.S. companies. If confirmed, I will work to help host countries 
understand the importance of choosing options that are consistent with 
free market competition and transparency, sustainable financing 
arrangements, and high standards of good governance over more harmful 
alternatives. I will urge China to uphold internationally accepted best 
practices for its overseas infrastructure projects.

    Question 8. Beyond creating a new development finance agency and 
warning countries of the dangers of indebtedness to China, how should 
the United States respond to China's Belt and Road Initiative?

    Answer. I recognize the importance of improving economic 
connectivity through sustainable development and creating jobs without 
exploiting the sovereign right of countries to develop on their own 
terms, principles which are core pillars of our free and open Indo-
Pacific strategy. If confirmed, I will call on all countries, 
especially China, to apply the highest international standards of 
transparency and good governance to their development initiatives. 
Working with our allies and partners, I will support the Indo-Pacific 
strategy and other efforts to facilitate transparent, rule-based, 
market-oriented alternatives to the Belt and Road Initiative.

    Question 9. It seems everyone but the U.S. is paying attention to 
the growth (not just in population, but also the middle class) and 
market opportunities Africa offers. What are the risks of ignoring 
Africa's role as an economic and security partner?

    Answer. Africa has witnessed significant improvements in 
development, education, health, and good governance. U.S. engagement 
enabled much of that progress and will play an essential role in 
sustaining and building on those positive developments. Combating 
corruption and ensuring a level playing field for the private sector 
supports both American companies and Africa's continued economic 
growth. U.S. Government support for peace and security in Africa is 
critical to reaching the administration's democracy and governance, 
economic, and development goals. If confirmed, I will work to further 
strengthen our economic and security partnerships across the African 
continent.

    Question 10. I have been concerned by the levels of violence and 
instability following the Zimbabwean election. I was in Zimbabwe in 
April with Senators Flake, Coons, Bennet, and Peters and we were 
excited by the prospect of witnessing a historic transition from Mugabe 
and a possible normalization of relations between our two countries. 
Unfortunately, however, that possibility seems distant. The State 
Department did not mention ZDERA (the Zimbabwe Democracy and Economic 
Recovery Act of 2001) or the Amendment to ZDERA, which President Trump 
signed into law last week in its otherwise strong statement about the 
elections. This was a missed opportunity because Congress provided the 
State Department with the tools to respond to what was happening in 
Zimbabwe. First, I want to thank Assistant Secretary Tibor Nagy, 
Ambassador Nichols, and Ambassador Foote for their personal involvement 
and responsiveness during the election and in the days following. Their 
efforts in the field demonstrate exactly why we need Ambassadors and 
leadership in place. Do you believe that Zimbabwe is now ``open for 
business,'' as President Mnangagwa stated in his op-ed a few months 
ago?

    Answer. President Mnangagwa has indicated he recognizes the need to 
turn around the sinking economy. While we welcome the legal and 
regulatory changes allowing majority foreign ownership in most sectors, 
we are still waiting for deeper fiscal reforms, including a plan to 
address the country's liquidity crisis. The private sector needs strong 
signals the business climate is improving before it will invest. Any 
changes in our engagement must also be linked to progress on democratic 
governance, respect for human rights, and the rule of law. I understand 
that the recent amendments to ZDERA underscore benchmarks needed to 
rebuild Zimbabwe, and we will rely upon this legislation as we assess 
our bilateral relationship.

    Question 11. In light of the post-election climate, do you support 
normalization of relations between the two countries?

    Answer. Zimbabwe had a historic opportunity to move the country 
toward a brighter future for all in Zimbabwe; however, the violence 
that occurred directly following the July 30 election was not a step 
toward that future. I am deeply concerned by the continuing reports of 
beatings and detentions of Zimbabweans, including the death of six 
unarmed protesters on August 1. My condolences go out to the families 
and friends of those whose lives were lost. Now the obligation is on 
the Zimbabwean Government to re-commit to deepening political and 
economic reforms. Meaningful reforms in the areas of human rights, the 
economy, democratic governance and deeper electoral reforms are 
necessary as we continue to assess our bilateral relationship.

    Question 12. What should the U.S. posture be toward Zimbabwe?

    Answer. We should continue to encourage the Zimbabwean Government 
to implement deep and meaningful political and economic reforms. The 
electoral process, including concerns both before and immediately after 
July 30, did not represent what we wished for the people or Zimbabwean 
Government. We are extremely disappointed by post-election violence, 
including the ongoing intimidation of opposition supporters. The 
responsibility continues to be on the Government of Zimbabwe to set 
itself on a new path of robust reforms that may allow the United States 
and our international partners to engage the country in ways that have 
not been previously possible.

                               __________


                              NOMINATIONS

                              ----------                              


                    THURSDAY, AUGUST 16, 2018 (P.M.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
chairman of the committee, presiding.
    Present: Senators Johnson [presiding], Jones, Murphy, 
Shelby.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good afternoon. I think we will start the 
hearing, and when Senator Shelby comes we will yield to him so 
he can introduce Ms. Blanchard.
    I want to welcome all the nominees. Thank you for your 
prior service to this country, those of you who are currently 
serving, and your willingness to serve in the future. I want to 
welcome your families and friends, and encourage you in your--
in your opening statements to certainly introduce them to the 
committee.
    Today we are gathering to consider four nominations, 
ambassadorships to Slovenia, Moldova, Kosovo, and to 
Montenegro. These are important ambassadorships. I personally 
believe that these countries, although they are not huge, they 
are important. They are on the cusp. We are kind of at a hinge 
point in history in terms of, you know, do they continue to 
seek out relationships with the West, and realize that their 
economic and political futures really lie to the West, or do 
they start looking back toward Russia.
    So I think the most important thing that the West needs to 
do is pay attention, let them know that we really do want to 
help them proceed, shed legacies of corruption, install rule of 
law, advance economically. So, again, I really do appreciate 
the fact that you all are willing to serve these important 
posts.
    We do have the pleasure of having Senator Doug Jones 
introduce Ms. Blanchard. So I know your time is precious like 
all of ours. So we will let you go first, and then we will kind 
of see how this all goes when Senator Shelby comes. But Senator 
Jones, the floor is yours.

                 STATEMENT OF HON. DOUG JONES, 
                   U.S. SENATOR FROM ALABAMA

    Senator Jones. Thank you, Mr. Chairman. It is a great 
pleasure to be here, and it is always an interesting 
opportunity to go before Senator Shelby whenever you get the 
opportunity.
    As you know, this is--I am still fairly new to this body, 
and this is my first opportunity to help introduce a nominee to 
one of our committees for nomination. I am honored to be here 
today.
    I want to make sure that I first congratulate Ms. Lynda 
Blanchard and her family on this nomination, but more 
importantly, I want to congratulate the President on this 
nomination. Ms. Blanchard has distinguished herself in our 
State of Alabama and abroad as a true humanitarian and an 
advocate for children, which is important to all of us.
    Ms. Blanchard has been the driving force as founder and CEO 
of several nonprofit organizations that have had a positive 
impact on children at home and around the world. In Montgomery, 
Alabama, she established an equestrian program for children 
with special needs and disabilities.
    Internationally, her 100X Foundation has had a positive 
impact on development challenges on nearly every continent, 
through programs delivered by strategic partnerships with 
several universities in Alabama.
    Her leadership has been critical to building innovative 
approaches to maternal, newborn, and child health, nursing 
education, and human trafficking. The work has touched people's 
lives in countries, including Malawi, Moldova, India, Peru, and 
Honduras.
    In Alabama, we are very proud of our nationally renowned 
nursing and medical education programs. It is to Ms. 
Blanchard's credit that mothers and children in rural villages 
in Malawi may now benefit from the care of nurses trained by 
students and faculty from the University of Alabama, in 
Birmingham's doctoral nursing program.
    Lyndy has experience as a liaison with many foreign 
governments in building these strategic partnerships. And I 
know that experience will serve her well in representing our 
nation's interest in Slovenia.
    Mr. and Ms. Blanchard are also strong advocates for 
international adoption, and are proud parents of seven 
children, four of which were adopted from overseas.
    Mr. Chairman, I believe Ms. Blanchard's experience as a 
leader in international development and an advocate for 
children will serve as well as our next Ambassador to Slovenia.
    I thank you for the time in allowing me to be here today, 
and introduce her to the committee, and I am honored to do so.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Jones. We certainly 
appreciate that. While we are waiting for Senator Shelby, 
Senator Murphy, do you have an opening statement?

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. I can, if you would like me to. [Laughter.]
    Senator Murphy. No. I am very happy to have an esteemed 
panel of nominees before us today, focusing clearly on the 
Balkan region. This is a region that both the Chairman and I 
care a lot about, a place where we have been.
    I always say if you want to tell a good news story about 
the Balkans, you can tell a good news story. We forget that 
there was a time in the very recent past when as a requirement 
to entry into the Senate or the House you had to know a whole 
lot about this region, because there was a big U.S. footprint 
in it, and there was great uncertainty as to whether it was 
going to be able to emerge from war. There has been a 
tremendous amount of progress made since those days.
    At the same time, if you want to tell a bad news story 
about the Balkans, you can, because many of those ethnic 
tensions are still simmering. Borders are still unresolved, and 
progress has been slow recently on democracy promotion and the 
rule of law.
    I tend to hue towards the good news story rather than the 
bad news story, but if you want that to be the future, not just 
the present, U.S. engagement is the key. And when you travel to 
that region, that is what you hear over and over again, that 
without the United States on the ground, without an active 
United States on the ground, those tensions that are still 
there that led to this part of the world being at the center of 
all of the global conflicts that we read about in the history 
books, then the bad news can overwhelm the good news. And I 
think we have got a great lineup here that will represent the 
United States ably, and look forward to the testimony.
    Senator Johnson. Thanks, Senator Murphy.
    So when confirmed, you will certainly have support from 
this committee in terms of paying attention and supporting your 
efforts as best we can. And excellent timing. We just see 
Senator Shelby entering right now. So if you are to get settled 
there, Senator Shelby, you can have the floor to introduce Ms. 
Blanchard.

           STATEMENT OF HON. SENATOR RICHARD SHELBY, 
                   U.S. SENATOR FROM ALABAMA

    Senator Shelby. Thank you, Mr. Chairman. Sorry I was late, 
but we were trying to tee up, as you know, all of you know, the 
appropriations bill on the floor.
    Mr. Chairman, Ranking Member Murphy, I appreciate the 
opportunity to appear before the Senate Foreign Relations 
committee today to introduce Ms. Lyndy Blanchard, of 
Montgomery, Alabama. She has been nominated by President Trump 
to serve as the United States Ambassador to Slovenia.
    I have known and respected Lyndy for many years. I am proud 
of her philanthropic efforts and her many achievements, which 
have allowed her to be nominated for this ambassadorship.
    Ms. Blanchard cofounded B&M Management, a leading real 
estate company, where she most recently served as a senior 
advisor. In this role, Lyndy was in charge of overseeing 
operations, managing maintenance, and deploying teams to 
locations nationwide.
    Additionally, Ms. Blanchard cofounded and served as the CEO 
of 100X Development Foundation, an organization dedicated to 
creating solutions to eliminate poverty and improve the lives 
of children around the world.
    Through the years she has gained experience working all 
over the globe, including Africa, Asia, South America, to 
mention some, to further the mission of the 100X Development 
Foundation. Along with her vast business experience and 
international outreach, Ms. Blanchard has a passion for helping 
people with special needs.
    She served on numerous nonprofit boards, supported 
education programs across my State of Alabama, and been an 
advocate for adoption. She has also been recognized for her 
philanthropic efforts through the years. She received the 
Distinguished International Humanitarian Award from the 
National Council of Women. And following her work to prevent 
human trafficking in Moldova, she was publically honored by 
John Bercow, Britain's Speaker of the House of Commons, and Mr. 
Peter Bone, a Member of Parliament, and Chairman of the All 
Party Parliamentary Group.
    Ms. Blanchard's vast knowledge experience and dedication to 
forming and maintaining international relationships I think 
make her highly qualified to serve in this new capacity. I 
believe she will use this opportunity as a way to maintain our 
nation's policy of relationship with Slovenia.
    I support this nomination, and I urge my colleagues in the 
Senate to do the same, and we are hopeful that the committee 
will act favorably on this nomination.
    And thank you, Mr. Chairman and Ranking Member Murphy for 
letting me come ahead like this.
    Senator Johnson. Thank you, Senator Shelby, and your timing 
was perfect. Your junior senator did a good job as well 
introducing Ms. Blanchard. So, again, thank you for coming here 
and providing that introduction.
    Senator Shelby. Thank you.
    Senator Johnson. So without further ado, I also have an 
introduction, but I do not think I can really add much to what 
Senator Shelby and Senator Jones did, so Ms. Blanchard, the 
floor is yours for your testimony.

  STATEMENT OF MS. LYNDA BLANCHARD OF ALABAMA, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF SLOVENIA

    Ms. Blanchard. Thank you Chairman Johnson, Ranking Member 
Murphy, and distinguished members of the committee. I would 
also like to thank my Alabama delegation, especially Senator 
Shelby and Senator Jones for their generous introductions, as 
well as their unfailing support and dedication to our great 
state.
    I am blessed to be here today as the President's nominee to 
serve as Ambassador to the Republic of Slovenia. I understand 
and appreciate the immense importance of this post to the First 
Lady, and I am honored by President Trump's and Secretary 
Pompeo's faith in me.
    If confirmed, I will work tirelessly on behalf of the 
people of the United States to strengthen our relationship with 
this friend and ally. I am here today with my family, and I 
would not be in this position today if it were not for their 
unwavering love and support. Do you mind if they stand up? Is 
that okay? Thank you.
    Our country has afforded me many opportunities, for which I 
am ever grateful. I was married at 19, became a mom to a 3-
year-old son 6 months later, and then earned my degree in my 
30s, when we were finally able to afford it. I have served in a 
variety of professional roles, at times just to make ends meet. 
This includes serving as an orthopedic assistant, business 
executive, and humanitarian. I have partnered with 
international business leaders and foreign dignitaries on 
projects to improve education, decrease poverty, and instill 
dignity and hope.
    My family and I have accomplished this through our 
nonprofit organization that provides care to thousands of 
children across the globe. As an adoptive parent of children 
from around the world, I take my role in positively impacting 
lives both personally and seriously. I look forward to putting 
my humanitarian passion, business acumen, and large-scale 
management proficiencies to work for our country on the 
international stage.
    If confirmed, I am confident that these experiences will 
make me an effective and reliable representative of the United 
States of America, and a friend to Slovenia. If confirmed, 
also, I realize that upon my arrival in Slovenia, I will not be 
the expert. In my experience working in different countries 
abroad, I have found that the first order of business is to 
learn from the experts in that country.
    This includes our embassy officials at posts, as well as 
Slovenian Government officials, business people, academics, 
representatives of the media and NGOs, as well as the Slovenian 
public.
    Slovenia has positioned itself as a reliable partner of the 
United States. However, there are many ways to improve 
relations between our countries. Though a young country, 
Slovenia has emerged as a regional leader in implementing 
democratic reforms, and has played a positive role in the 
Balkan region. Slovenia has built an impressive reputation for 
international cooperation, multilateral engagement, and respect 
for the rule of law.
    As a member of the European Union and the North Atlantic 
Treaty Organization, Slovenia has supported many American 
initiatives abroad. Its military has supported our mission in 
Afghanistan and in Iraq. Its Government has adopted rigorous 
measures to combat human trafficking, its institutions 
safeguard civil liberties, and promote human rights 
domestically and around the globe. These commitments and the 
values that underpin them are not simple or easy, and they must 
be recognized and commended.
    With 50 percent of the Slovenia economy under state 
ownership or control, there exists opportunities for increased 
private investment. In recent years the Government has taken 
steps to privatize state-owned enterprises, privatization has 
contributed to improved economic outcomes, such as higher 
wages, increased productivity, and growing consumer command.
    Encouraging these reforms and initiative will help Slovenia 
attract U.S. companies and investors interested in doing 
business there. If confirmed, Senators, I will relentlessly 
advocate and use every available tool at my disposal to 
encourage Slovenians to accelerate reforms, to improve 
bilateral trade, and investment opportunities.
    And lastly, relations between our two countries must 
continue to improve through direct outreach and engagement with 
Slovenian people. If confirmed, I will seek to expand and 
enhance further American standing by directly engaging the 
Slovenian public. I will build on my predecessor's efforts to 
foster a greater understanding and cooperation by facilitating 
sustained dialog between our two peoples.
    Thank you for your time and consideration. And I look 
forward to answering any questions.
    Senator Johnson. Thank you, Ms. Blanchard.
    [Ms. Blanchard's prepared statement follows:]


                 Prepared Statement of Lynda Blanchard

    Thank you Chairman Johnson, Ranking Member Murphy, and 
distinguished members of the committee.
    I would also like to thank the Alabama delegation, and particularly 
Senator Shelby and Senator Jones, for their generous introductions as 
well as their unfailing support and dedication to our great state.
    I am blessed to be here today as the President's nominee to serve 
as Ambassador to the Republic of Slovenia. I understand and appreciate 
the immense importance of this post to the First Lady, and I am honored 
by President Trump's and Secretary Pompeo's faith in me. If confirmed, 
I will work tirelessly on behalf of the people of the United States to 
strengthen our relationship with this friend and ally.
    I am here today with my family. I would not be in this position 
today if not for their unwavering love and support.
    Our country has afforded me many opportunities, for which I am ever 
grateful. I was married at 19, became a mom to a three year-old son six 
months later, and then earned my degree in my 30s when we were finally 
able to afford it. I have served in a variety of professional roles, at 
times just to make ends meet. This includes serving as an orthopedic 
assistant, business executive, and humanitarian. I have partnered with 
international business leaders and foreign dignitaries on projects to 
improve education, decrease poverty, and instill dignity and hope. My 
family and I have accomplished this through our non-profit organization 
that provides care to thousands of children across the globe.
    As an adoptive parent of children from around the world, I take my 
role in positively impacting lives both personally and seriously. I 
look forward to putting my humanitarian passion, business acumen, and 
large-scale management proficiency to work for our country on the 
international stage. If confirmed, I am confident that these 
experiences will make me an effective and reliable representative of 
the United States and friend to Slovenia.
    I realize that upon my arrival in Slovenia, I will not be the 
expert. In my experience working in different countries abroad, I have 
found that the first order of business is to learn from the experts in 
that country. This includes our embassy officials at post as well as 
Slovenian Government officials, businesspeople, academics, 
representatives of the media and NGOs, as well as the Slovenian public.
    Slovenia has positioned itself as a reliable partner of the United 
States. However, there are many ways to improve relations between our 
countries.
    Though a young country, Slovenia has emerged as a regional leader 
in implementing democratic reforms and has played a positive role in 
the Balkan region. Slovenia has built an impressive reputation for 
international cooperation, multilateral engagement, and respect for 
rule of law. As a member of the European Union and the North Atlantic 
Treaty Organization, Slovenia has supported many American initiatives 
abroad. Its military has supported our mission in Afghanistan and in 
Iraq; its Government has adopted rigorous measures to combat human 
trafficking; its institutions safeguard civil liberties and promote 
human rights domestically and around the globe. These commitments and 
the values that underpin them are not simple or easy, and they must be 
recognized and commended.
    With 50 percent of the Slovenian economy under state ownership or 
control, there exists opportunities for increased investment. In recent 
years, the Government has taken steps to privatize state-owned 
enterprises. Privatization and deregulation have contributed to 
improved economic outcomes such as higher wages, increased 
productivity, and growing consumer demand. Encouraging these reforms 
and initiatives will help Slovenia attract U.S. companies and investors 
interested in doing business there. If confirmed, I will relentlessly 
advocate and use every available tool at my disposal to encourage 
Slovenians to accelerate reforms to improve bilateral trade and 
investment opportunities.
    Lastly, relations between our two countries must continue to 
improve through direct outreach to and engagement with the Slovenian 
people. If confirmed, I will seek to expand and enhance further 
American standing by directly engaging the Slovenian public. I will 
build on my predecessor's efforts to foster greater understanding and 
cooperation by facilitating sustained dialogue between our two peoples.
    Thank you for your time and consideration. I look forward to 
answering your questions.


    Senator Johnson. Our next nominee is Mr. Dereck J. Hogan. 
And Mr. Hogan is the President's nominee to be the U.S. 
Ambassador to Moldova. Mr. Hogan, a career member of the Senior 
Foreign Service, has worked as an American diplomat for over 20 
years.
    Since 2017 he has served as deputy executive secretary of 
the U.S. Department of State. Mr. Hogan has served five tours 
working in or on Eastern Europe. On his most recent tour 
overseas he served in Azerbaijan as charge' d'affaires and 
deputy chief of mission.
    Previously, he worked as a Department of State 
representative on the civilian military provincial 
reconstruction teams in Afghanistan.
    Mr. Hogan.

 STATEMENT OF DERECK J. HOGAN OF VIRGINIA, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOPTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF MOLDOVA

    Mr. Hogan. Thank you, Senator.
    Mr. Chairman, Ranking Member Murphy, and distinguished 
members of the Senate Foreign Relations committee, I am honored 
and humbled to appear here today as President Trump's nominee 
to be the next U.S. Ambassador to the Republic of Moldova.
    I am grateful to the President and to Secretary Pompeo for 
the confidence they have placed in me. If confirmed, I pledge 
to work closely with the Congress to advance our nation's 
important interest in Moldova.
    I would not be here without the love and support of my 
wife, Anny, and our daughter, Hannah, right behind me. Anny and 
Hannah have kept me balanced, humble, and focused on the most 
important things in life. I also would like to introduce you to 
my father, Eric Hogan, and stepmother, Linda Hogan, who are 
behind me as well.
    My father and my mother, Mickie Hogan, who passed away in 
2005, and my stepmother, Linda, have taught me how to put my 
faith in God, and live to serve others. During my 21-year 
diplomatic career, I have had the opportunity to do just that, 
serve the American people by promoting U.S. interests and 
values in the Dominican Republic, Nicaragua, Afghanistan, 
Belarus, Russia, and Azerbaijan.
    I believe my overseas assignments in countries in 
transition, and vulnerable to foreign maligned influence, along 
with multiple senior leadership positions in Department of 
State have prepared me well to lead a dynamic mission in a 
country on Europe's eastern frontier.
    Our overarching foreign policy objective in Moldova is for 
the country to be a fully democratic, economically prosperous 
state, firmly anchored in Europe, secure within its 
internationally recognized borders. In signing an association 
agreement and a deeper and comprehensive free trade agreement 
with the European Union in 2014, Moldova boldly chose a Euro-
Atlantic path.
    Despite active Russian interference and opposition, the 
Moldovan Government has taken important steps on that path. 
With donor aid, including considerable assistance from the 
United States, Moldova has strengthened its police force, 
efforts to combat trafficking in persons, and some of its key 
institutions, such as customs and tax collection agencies.
    As a result of the often difficult economic reforms it has 
undertaken, today Moldova's economy is less dependent on Russia 
than ever before, with over 80 percent of exports now going to 
European, North American, and other markets outside of the 
former Soviet Union.
    Moldova is also diversifying its sources and routes to 
break its dependence on Russian-supplied energy, building new 
connections to Europe. Moldova has actively contributed to and 
show a greater regional security, and consistently participates 
in regional military exercises, and supports the NATO-led 
mission in Kosovo.
    We also welcome the recent progress in the OSCE-led 
negotiations to resolve the longstanding Transnistria conflict, 
and reached an agreement on a special status for Transnistria 
within Moldova's internationally recognized borders.
    If confirmed as Ambassador, I will continue to support 
Moldova's efforts to resist Russian pressure, and fully realize 
its potential as a prosperous Western-oriented democracy. The 
Moldovan Government and people undoubtedly recognize that much 
work still needs to be done.
    Corruption, weak rule of law, and a non-transparent justice 
sector only hamper Moldova's economic growth, and facilitate 
its vulnerability to Russian pressure. The nontransparent 
invalidation of the June 3 mayoral elections in the capital, 
Chisinau, forwarded the electoral will of the Moldovan people, 
and undermined rule of law. Next February's parliamentary 
elections are a crucial opportunity to boost international and 
domestic confidence in Moldova.
    If confirmed, my goal will be to consistently demonstrate 
to the Moldovan Government and public the benefits and 
responsibilities of deeper integration into the Euro-Atlantic 
community. I will direct our assistance to continue to promote 
needed democratic reforms, strengthen Moldovan institutions, 
and combat corruption at all levels.
    With my team at the embassy I will support broad-based 
economic growth, work to reduce poverty, and encourage a rules-
based system that is conducive to U.S. commercial activity. 
Direct engagement with the people of Moldova will figure 
prominently on my daily schedule.
    If confirmed, the safety and security of our talented 
mission personnel and American citizens in the country will be 
my top priority. I will also continue to be a good steward of 
the American people's tax dollars and resources.
    In closing, I would like to take this opportunity to thank 
each of you for your time today. If confirmed, I look forward 
to working with you and our U.S. mission team in Moldova to 
advance our important interests and strengthen our bilateral 
relationship.
    Thank you. And I would be pleased to answer any questions 
you have.
    [Mr. Hogan's prepared statement follows:]


                   Prepared Statement of Dereck Hogan

    Mr. Chairman, Ranking Member Murphy, and distinguished members of 
the Senate Foreign Relations committee, I am humbled and honored to 
appear here today as President Trump's nominee to be the next U.S. 
Ambassador to the Republic of Moldova. I am grateful to the President 
and to Secretary Pompeo for the confidence they have placed in me. If 
confirmed, I pledge to work closely with the Congress to advance our 
nation's important interests in Moldova.
    I would not be here without the support of my wife, Anny, and our 
14 year-old daughter, Hannah, whom I am pleased to introduce to you. 
Anny and Hannah have kept me balanced, humble, and focused on the most 
important things in life. I also would like to introduce you to my 
father, Eric Hogan, and step mother, Linda. I am blessed to have been 
raised by a father and mother who taught me how to put my faith in God 
and live to serve others.
    During my 21-year diplomatic career, I have had the opportunity to 
do just that--serve the American people by promoting U.S. interests and 
values in the Dominican Republic, Nicaragua, Afghanistan, Belarus, 
Russia, and Azerbaijan. I believe my overseas assignments to countries 
in transition and vulnerable to foreign malign influence, along with 
multiple senior leadership positions in the Department, have prepared 
me well to lead a dynamic mission in a country on Europe's eastern 
frontier.
    Our overarching foreign policy objective in Moldova is for the 
country to be a fully democratic, economically prosperous state firmly 
anchored in Europe, secure within its internationally recognized 
borders. A strong and secure Moldova is a better partner for the United 
States and the region.
    In signing an Association Agreement and a Deep and Comprehensive 
Free Trade Agreement with the European Union in 2014, Moldova boldly 
chose a Euro-Atlantic path. Despite active Russian interference and 
opposition, the Moldovan Government has taken important steps on that 
path. With donor aid, including considerable assistance from the United 
States, Moldova has strengthened its police force, efforts to combat 
trafficking in persons, and some of its key institutions, such as 
customs and tax collection agencies. As a result of the often difficult 
economic reforms it has undertaken, today Moldova's economy is less 
dependent on Russia than ever before, with over 80 percent of exports 
now going to European, North American, and other markets outside the 
former Soviet Union. Moldova is also diversifying its sources and 
routes to break its dependence on Russian-supplied energy, building new 
connections to Europe with international donor support. Moldova has 
actively contributed to ensure greater regional security and 
consistently participates in regional military exercises and supports 
the KFOR mission in Kosovo.
    We also welcome the progress in the OSCE-led negotiations to 
resolve the long-standing Transnistria conflict and reach agreement on 
a special status for Transnistria within Moldova's internationally 
recognized borders. The negotiations, which are commonly known as the 
``5+2'' talks and involve the United States as an official observer, 
have produced real results over the past year and will improve the 
lives of the people on both sides of the Nistru River. We continue to 
call for the withdrawal of Russia's remaining forces and equipment from 
Moldova, consistent with its 1999 Istanbul OSCE Summit commitments.
    If confirmed as Ambassador, I will continue to support Moldova's 
efforts to resist Russian pressure and fully realize its potential as a 
prosperous, Western-oriented democracy. The Moldovan Government and 
people undoubtedly recognize that much work still needs to be done. 
Corruption, weak rule of law, and a non-transparent justice sector only 
hamper Moldova's economic growth and facilitate its vulnerability to 
Russian pressure. Moldova's financial sector is still recovering from 
the 2014 embezzlement of over a billion dollars--almost 15 percent of 
Moldova's GDP at the time. The non-transparent invalidation of the June 
3 mayoral elections in Chisinau thwarted the electoral will of the 
Moldovan people and undermined the rule of law in Moldova. Next 
February's parliamentary elections are a crucial opportunity to boost 
international and domestic confidence in Moldova. The United States, 
along with Moldova's other international partners, will actively 
support and encourage initiatives to promote free, fair, and 
transparent elections.
    If confirmed, my goal will be to consistently demonstrate to the 
Moldovan Government and public the benefits and responsibilities of 
deeper integration into the Euro-Atlantic community. I will direct our 
assistance to continue to promote needed democratic reforms, strengthen 
Moldovan institutions, and combat corruption at all levels. With my 
team at the Embassy, I will support broad-based economic growth, work 
to reduce poverty, and encourage a rules-based system that is conducive 
to U.S. commercial activity. Direct engagement with the people of 
Moldova will figure prominently on my daily schedule. I am keenly aware 
that robust public diplomacy and people-to-people exchanges foster 
deeper bilateral ties and undermine Russia's anti-West narrative.
    Serving as the U.S. Ambassador to Moldova would not only be a great 
honor but also a great responsibility. If confirmed, the safety and 
security of our talented Mission personnel and American citizens in the 
country will be my top priority. I will also continue to be a good 
steward of the American people's tax dollars and resources.
    In closing, I would like to take this opportunity to thank each of 
you for your time today. If confirmed, I look forward to working with 
you and our U.S. Mission team in Moldova to advance U.S. interests and 
strengthen our bilateral relationship with Moldova. I would be pleased 
to answer any questions you may have.


    Senator Johnson. Thank you, Mr. Hogan.
    Our next nominee is Mr. Philip Kosnett. Mr. Kosnett has 
been nominated to be the U.S. Ambassador to Kosovo. Mr. Kosnett 
is a career member of the Senior Foreign Service. From 2016 to 
2018 he served as the charge d'affaires and deputy chief of 
mission to the U.S. Embassy in Ankara, Turkey.
    Prior to his post in Turkey he served as the director of 
the State Department's Office of Southern European Affairs, and 
as Deputy Chief of Mission at the U.S. Embassy in Uzbekistan. 
He previously served in Kosovo in 2003 as the political 
director at the U.S. office in Pristina.
    Mr. Kosnett.

STATEMENT OF PHILIP KOSNETT OF VIRGINIA, A CAREER MEMBER OF THE 
 SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE REPUBLIC OF KOSOVO

    Mr. Kosnett. Chairman Johnson, Ranking Member Murphy, 
Senator Kaine, it is an honor to appear before the committee 
today as the President's nominee as Ambassador to the Republic 
of Kosovo. I deeply appreciate the trust and confidence the 
President and the Secretary of State have placed in me to 
represent the American people, and I hope to earn your trust as 
well.
    I am accompanied today by my wife, Alison Kosnett, a 
development professional, who has served with me in Iraq, 
Afghanistan, Uzbekistan, and Turkey.
    The U.S. relationship with Kosovo is rock solid. Kosovo 
credits the United States as its closest strategic partner. 
Kosovo remains staunchly pro-American, and our partnership is 
rooted in a shared belief that a sovereign democratic Kosovo is 
essential to Balkan stability. Having served in Kosovo earlier 
in my career, I have experienced for myself the deep connection 
between the people of Kosovo and the United States.
    The U.S. investment in Kosovo has yielded concrete results. 
Since 1999, $1.9 billion in U.S. assistance has helped Kosovo 
build institutions, achieve the highest GDP growth in the 
region every year since 2015, and improve integration of 
minority communities.
    Thanks to U.S. advocacy, over 100 countries now recognize a 
sovereign independent Kosovo. U.S. businesses have found Kosovo 
a welcome environment for building world-class highways, 
opening franchises, and developing a $1.4 billion power plant 
that will revolutionize Kosovo's economy.
    Despite its notable achievements, Kosovo continues to face 
challenges which impact U.S. interests in the Balkans and 
beyond. If confirmed, I will lead a whole of government effort 
to help Kosovo overcome these obstacles, focusing the work of 
the embassy on several priority areas.
    First, enhancing dialog with Serbia. The U.S. Government's 
most pressing priority is normalization of Kosovo's 
relationship with Serbia, which would bolster regional 
stability, and pave the way for both country's regional--for 
both country's Western integration.
    The United States strongly supports the EU-facilitated 
dialog, and welcomes the intensification of high-level talks. 
If confirmed, I will encourage Kosovo to pursue a resolution 
that improves the lives and ensures the safety of all citizens 
of Kosovo and Serbia. NATO's KFOR mission, trusted by Albanians 
and Serbs alike, and which U.S. forces play a leadership role, 
remains essential to providing the stability and security 
necessary to allow these negotiations to take place.
    Second, countering corruption and strengthening rule of 
law. Corruption in Kosovo remains endemic. Strengthening the 
rule of law is essential to attracting foreign investment, and 
increasing public trust in Kosovo's institutions. Justice for 
victims of all ethnicities remains vital and a prerequisite for 
reconciliation.
    If confirmed, I will urge the government to support the 
work of the special court in The Hague to deal responsibly with 
Kosovo's past.
    Third, supporting human rights and minority integration. If 
confirmed, I will actively support the protection of Kosovo's 
rich heritage, and will hold officials to account when they 
fail to uphold Kosovo's rigorous legal protections for human 
rights. I will continue the missions focus on increasing 
interethnic cooperation, ensuring equal access to justice and 
services for all of Kosovo's citizens.
    Fourth. Combatting terrorism and violent extremism. With 
U.S. support, Kosovo has become a regional leader in 
counterterrorism. Since 2015, Kosovo has arrested over 200 
individuals suspected of supporting terrorism. Twenty NGOs with 
extremist links have been closed. If confirmed, I will continue 
our broad collaboration with Kosovo in confronting this 
challenge.
    Fifth, enhancing Kosovo's capabilities for self-defense. 
Like any country, Kosovo has the sovereign right to establish 
armed forces for its defense. The United States supports 
transition of the Kosovo security force into a NATO 
interoperable army, with a limited defense mandate. Kosovo 
should remain in close coordination with us, and continue its 
outreach to Kosovo Serbs to ensure a successful transition.
    If confirmed, I will work with NATO allies and Kosovo to 
create a Kosovo armed forces that is capable, inclusive, and a 
positive element for regional stability.
    And finally, developing energy security. Unreliable energy 
costs the Kosovo economy $415 million annually, or roughly 6 
percent of GDP. If confirmed, I will advocate for 
implementation of Kosovo's comprehensive energy security 
strategy, which includes a diversified portfolio of traditional 
and renewable fuels.
    In conclusion, Kosovo's emergence as an increasingly 
stable, confident, and prosperous democracy, a reliable partner 
in the pursuit of common security and economic interests is a 
success story for American diplomacy. If confirmed, I will work 
with the government and people of Kosovo, with the exceptional 
interagency team at Embassy Pristina, with partners in the 
administration, and in the Congress, with American businesses 
and NGOs, and with international counterparts to realize the 
vision of a democratic and stable Kosovo.
    I thank you for your time, and would be pleased to take 
questions.
    [Mr. Kosnett's prepared statement follows:]


                  Prepared Statement of Philip Kosnett

    Chairman Johnson, Ranking Member Murphy, it is an honor to appear 
before the committee today as the President's nominee as Ambassador to 
the Republic of Kosovo. I deeply appreciate the trust and confidence 
the President and the Secretary of State have placed in me to represent 
the American people, and I hope to earn your trust as well. I am 
accompanied today by my wife Alison Kosnett, a development professional 
who has served with me in Iraq, Afghanistan, Uzbekistan, and Turkey.
    The U.S. relationship with Kosovo is rock-solid. Kosovo credits the 
United States as its closest strategic partner. Kosovo remains 
staunchly pro-American, and our partnership is rooted in a shared 
belief that a sovereign, democratic Kosovo is essential to Balkan 
stability. Having served in Kosovo earlier in my career, I have 
experienced for myself the deep connection between the people of Kosovo 
and the United States.
    The U.S. investment in Kosovo has yielded concrete results. Since 
1999, $1.9 billion in U.S. assistance has helped Kosovo build 
institutions, achieve the highest GDP growth in the region every year 
since 2015, and improve integration of minority communities. Thanks to 
U.S. advocacy, over 100 countries now recognize a sovereign, 
independent Kosovo. U.S. businesses have found Kosovo a welcome 
environment for building world-class highways, opening franchises, and 
developing a $1.4 billion power plant that will revolutionize Kosovo's 
economy.
    Despite its notable achievements, Kosovo continues to face 
challenges, which impact U.S. interests in the Balkans and beyond. If 
confirmed, I will lead a whole-of-government effort to help Kosovo 
overcome these obstacles, focusing the work of the Embassy on several 
priority areas:
Enhancing Dialogue with Serbia
    The U.S. Government's most pressing priority is normalization of 
Kosovo's relationship with Serbia, which would bolster regional 
stability and pave the way for both countries' Western integration. The 
United States strongly supports the EU-facilitated Dialogue, and 
welcomes the intensification of high-level talks. If confirmed, I will 
encourage Kosovo to pursue a resolution that improves the lives and 
ensures the safety of all citizens of Kosovo and Serbia. NATO's KFOR 
mission, trusted by Albanians and Serbs alike, and in which U.S. forces 
play a leadership role, remains essential to providing the stability 
and security necessary to allow these negotiations to take place.
Countering Corruption and Strengthening Rule of Law
    Corruption in Kosovo remains endemic. Strengthening the rule of law 
is essential to attracting foreign investment and increasing public 
trust in Kosovo's institutions. If confirmed, I will focus on improving 
transparency and will press the Government to combat political 
influence in the justice sector. Justice for victims of all ethnicities 
remains vital and a prerequisite for reconciliation. If confirmed, I 
will urge the Government to support the work of the ``Special Court'' 
in The Hague to deal responsibly with Kosovo's past.
Supporting Human Rights and Minority Integration
    If confirmed, I will actively support the protection of Kosovo's 
rich heritage and will hold officials to account when they fail to 
uphold Kosovo's rigorous legal protections for human rights. I will 
continue the Mission's focus on increasing inter-ethnic cooperation, 
ensuring equal access to justice and services for all of Kosovo's 
citizens, including minorities.
Combatting Terrorism and Violent Extremism
    With U.S. support, Kosovo has become a regional leader in 
counterterrorism. Since 2015, Kosovo has arrested over 200 individuals 
suspected of supporting terrorism and 20 NGOs with extremist links have 
been closed. If confirmed, I will continue our broad collaboration with 
Kosovo in confronting this challenge.
Enhancing Kosovo's Capabilities for Self-Defense
    Like any country, Kosovo has the sovereign right to establish armed 
forces for its defense. The United States supports transition of the 
Kosovo Security Force into a NATO-interoperable army with a limited 
defense mandate. Kosovo should remain in close coordination with us and 
continue its outreach to Kosovo Serbs to ensure a successful 
transition. If confirmed, I will work with NATO Allies and Kosovo to 
create a Kosovo Armed Forces that is capable, inclusive, and a positive 
element for regional stability.
Developing Energy Security
    Unreliable energy costs the Kosovo economy $415 million annually, 
or roughly six percent of GDP. If confirmed, I will advocate for 
implementation of Kosovo's comprehensive energy security strategy, 
which includes a diversified portfolio of traditional and renewable 
fuels. U.S. support for this effort includes a $49 million Millennium 
Challenge Corporation threshold program to encourage greater energy 
efficiency and develop new power sources, and for the aforementioned 
U.S.-designed power plant.

                               Conclusion

    Kosovo's emergence as an increasingly stable, confident, and 
prosperous democracy--a reliable partner in the pursuit of common 
security and economic interests--is a success story for American 
diplomacy. If confirmed, I will work with the Government and people of 
Kosovo, with the exceptional interagency team at Embassy Pristina, with 
partners in the administration and in the Congress, with American 
businesses and NGOs, and with international counterparts to realize the 
vision of a democratic and stable Kosovo.
    I thank you for your time and would be pleased to take questions.


    Senator Johnson. Thank you, Mr. Kosnett.
    Our fourth nominee is Ms. Judy Rising Reinke, and she is 
the nominee to be U.S. Ambassador of Montenegro. Ms. Reinke is 
a senior career member of the Department of Commerce's Foreign 
Commercial Service.
    Most recently, Ms. Reinke served as deputy director general 
of the Global Markets Division of the Department of Commerce. 
Over the course of her career that has spanned three decades, 
she has served at six U.S. missions overseas. Ms. Reinke.

   STATEMENT OF MS. JUDY RISING REINKE OF VIRGINIA, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, 
   TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE 
             UNITED STATES OF AMERICA TO MONTENEGRO

    Ms. Reinke. Thank you, Mr. Chairman, Ranking Member Murphy, 
distinguished members of the panel. Thank you for the time and 
the opportunity to appear before you as President Trump's 
nominee as U.S. Ambassador to Montenegro.
    I am very grateful for the opportunity to serve, and the 
confidence that the President and the Secretary have placed in 
me. If confirmed, I want to pledge to you that I want to work 
closely with you in achieving U.S. objectives in Montenegro.
    I am really proud today to be accompanied by my husband, 
Edwin Reinke, my daughter, Katherine Reinke. She is a sophomore 
at Johns Hopkins. We are very proud of her. The two of them 
have sat by my side everywhere we have gone. They have been my 
most committed supporters. I want to publically thank them for 
their patience and love.
    The path to my own career as a public servant started in my 
youth. I am the daughter of an American U.S. Army officer, and 
a nurse, and public service was in my veins. I am very proud 
that my grandfather, my father, two of my uncles, and my 
brother, Harry Rising, who is watching by Livestream, they were 
all West Point graduates. And I have heard the words ``duty, 
honor, country'' growing up in my ears. I was proud that they 
served our country. And I chose my own path towards an 
international public service career, and found it fortunate to 
become a member of the U.S. and Foreign Commercial Service, 
part of the U.S. Department of Commerce, as a Foreign Service 
Officer.
    In fact, I am only the fifth Commerce Department official 
to appear before this committee for consideration as a chief of 
mission. And I am the first woman, and I am proud of that. In 
fact, I am proud, and I said proud again, but I am proud to 
represent the men and women of the Foreign Commercial Service. 
They bring a unique set of skills to the Foreign Service in 
order to help grow jobs and prosperity in America through trade 
and investment.
    My experience as a Foreign Commercial Service Officer 
overseas and the skills that I have developed while leading our 
worldwide programs as the deputy director general, which you 
mentioned, sir, have prepared me for the position to which I am 
nominated.
    My early assignments were in Europe, and I later returned 
to manage our regional operations in Western Europe and EU 
affairs. My early postings were in Germany and Switzerland. 
From these positions I was able to watch the fall of the Berlin 
Wall, and eventually the dramatic breakup of Yugoslavia.
    I admired my Foreign Service colleagues who partnered with 
the Balkan region to rebuild and enter a new era of 
independence and growth. And now I am grateful to have an 
opportunity to serve in this region if confirmed.
    Montenegro reemerged, as you know, as an independent 
country only in 2006, and has shown itself to be a positive 
example in the region. The country's commitment to freedom and 
democracy was cemented by Montenegro's accession to NATO in 
June of last year.
    In fact, members of the Montenegro armed forces have served 
side by side with U.S. forces in Afghanistan since 2010. And 
happily, this newest NATO member is firmly on a path to achieve 
its two percent of GDP target for defense spending by 2024.
    Thus, while the country is small in size, it has 
demonstrated an outsize commitment to mutual operations. So 
just as Montenegro has committed to the mutual defense of its 
alliance partner, if confirmed, I will reassure our Montenegrin 
partners of our own robust commitment to the principle of 
mutual defense, as enshrined in article five of the Washington 
Treaty.
    The next step in this country's path to Euro-Atlantic 
integration is Montenegro's application for membership in the 
European Union, which is well under way. Supporting the 
integration of Montenegro into Euro-Atlantic institutions has 
been an overriding policy of the United States to date, and 
this will certainly be my top priority as Ambassador.
    And my second priority flows from the first. That is to 
support the Government of Montenegro's efforts to liberalize 
and strengthen its economy, including stamping out the scourge 
of corruption and bureaucratic overreach. As Montenegrin 
reforms begin to create a more effective and transparent legal 
and regulatory environment, economic growth and prosperity are 
sure to follow. And this, in turn, will bring more 
opportunities for U.S. firms in areas such as energy, tourism, 
health, agriculture. And if confirmed, I commit that the U.S. 
Embassy in Podgorica will make these deals happen.
    Finally, a third goal. As U.S. Ambassador to Montenegro 
will be to assure a deepening and a broadening of our public 
engagement in the country to help the people of Montenegro 
understand American values, and principles, and policies, to 
build trust, and to correct misperceptions. The people of 
Montenegro have been in engaged in a vital and exciting dialog 
on the direction of the country's future. And the stellar team 
at Embassy Podgorica is working hard to support these important 
discussions. Members of the committee, I am eager to join them.
    If confirmed, I assure the committee that I will protect 
American interests, ensure the fair treatment of American 
citizens, and promote American values with every single 
engagement I have with the Government of Montenegro, and its 
people.
    Thank you so much for the opportunity to be here today, and 
I look forward to answering your questions.
    [Ms. Reinke's prepared statement follows:]


                Prepared Statement of Judy Rising Reinke

    Mr. Chairman, Ranking Member Murphy, and distinguished members of 
the committee, thank you for allowing me this opportunity to appear 
before you today as President Trump's nominee for U.S. Ambassador to 
Montenegro. I am deeply grateful for the confidence that the President 
and Secretary Pompeo have placed in me. If confirmed, I pledge to work 
closely with you to advance our nation's interests in Montenegro.
    I'm proud to be accompanied by my family, specifically my husband, 
Edwin Reinke, and my daughter, Katherine. They have been at my side 
throughout my career and have been my most energetic and committed 
supporters; I want to thank them for their patience and love every step 
of the way. Katherine was a 3-month-old baby when we moved to Jakarta, 
Indonesia, and grew up in a Foreign Service environment, moving 
frequently and saying goodbye to more friends than I can count. She is 
now a sophomore at Johns Hopkins University, and I am grateful and 
proud that the Foreign Service experience has shaped a future leader 
who is as committed to the United States and our strong place in the 
world as I am.
    The path to my career as a public servant was shaped by my own 
upbringing. The daughter of an Army Officer and a nurse, I was raised 
with the words ``Duty, Honor, Country'' ringing in my ears. If that 
sounds familiar, it is because that is the motto of West Point, and I 
am proud that my grandfather, my father, two uncles, and my brother, 
Harry Rising, are all West Point graduates who proudly served their 
country. I might have been in the first class of women at West Point, 
but I chose my own path towards public service with an international 
focus, an interest sparked by time spent in Frankfurt, Germany as a 
little girl. The Foreign Service has been like a home to me for 25 of 
the 35 years I have been a public servant. I have been proud of each 
opportunity I have had to represent America while stationed abroad.
    I am deeply honored to have been nominated for the position of U.S. 
Ambassador to Montenegro, and I am committed to representing the 
interests of the United States there to the best of my ability. While 
the majority of career Foreign Service officers who appear before this 
committee come from the Department of State, I am proud to have served 
in the Foreign Commercial Service of the U.S. Department of Commerce. 
In fact, I am only the fifth Commerce
    Department officer to sit before this committee for consideration 
as a Chief of Mission, and the first woman. I am proud to represent the 
men and women of the FCS who bring a unique set of skills and 
experiences to the Foreign Service of this country. This nomination 
demonstrates to each of these colleagues the value of their service as 
officers advancing the commercial and diplomatic goals of the United 
States overseas and the importance of their hard work supporting free, 
fair and reciprocal trade and investment flows to help grow jobs and 
prosperity in America.
    My experience as a Foreign Commercial Service officer overseas and 
the skills I've developed while leading our worldwide programs as the 
Deputy Director General of the FCS have prepared me for the position to 
which I am nominated. My early assignments were in Europe, and later I 
returned to manage the regional operations of our Western Europe and EU 
programs. From my early postings in Switzerland and Germany in the 
early 1990s, I watched the fall of the Berlin Wall and later the 
dramatic breakup of Yugoslavia and transformation of the Western 
Balkans as war engulfed the region. My career then took me to Asia, but 
I watched from afar the work of my former Ambassador, Richard 
Holbrooke, as he brokered peace in Bosnia and Herzegovina and learned 
from my new Ambassador, Robert Gelbard, who arrived in Jakarta fresh 
from implementing the Dayton Peace Accords. I admired my Foreign 
Service colleagues who partnered with the people of the Balkan region 
to rebuild and enter a new era of independence and growth.
    Montenegro re-emerged as an independent country in 2006 and has 
shown itself to be a positive example in the region. The people of the 
country are strong and independent, and they have bravely embarked on 
the vital path of Euro-Atlantic integration and the principles that 
this decision represents. Their commitment to freedom and democracy was 
cemented by Montenegro's accession to NATO in June of last year, and 
the country's pledge to contribute to the mutual defense of its 
alliance partners was demonstrated well before its accession.
    Members of the Montenegrin armed forces have served side by side 
with U.S. troops in Afghanistan since 2010, and this newest NATO member 
is firmly on track to meet its two percent of GDP target to NATO by 
2024.
    Thus, while the country is small in size, it has demonstrated an 
outsized commitment to mutual defense operations, and it continues to 
play a constructive and stabilizing role in the Western Balkans. 
Stability and security are good for Montenegro's economic development 
and investment climate, and this, in turn, is good for America. 
Montenegro's accession to NATO reflects the country's embrace of 
democracy, rule of law and strong institutions that benefit all its 
people. And, just as Montenegro has committed to the mutual defense of 
its alliance partners, if confirmed, I will reassure our Montenegrin 
partners of our robust commitment to the principle of mutual defense as 
enshrined in Article 5 of the Washington Treaty.
    The next step in the country's path to Euro-Atlantic integration is 
Montenegro's application for membership in the European Union, which is 
well underway. If confirmed, I will provide U.S. support and guidance, 
as needed, to assist with this process. Supporting the integration of 
Montenegro into Euro-Atlantic institutions has been an overriding 
priority of the U.S. Government to date, and this will certainly be my 
own top priority as Ambassador.
    My second priority flows from the first: to support the Government 
of Montenegro's efforts to liberalize and strengthen its economy, 
including stamping out the scourge of corruption and bureaucratic 
overreach. As Montenegrin reforms begin to create a more effective and 
transparent legal and regulatory structure, economic growth and 
prosperity are sure to follow. American firms want to partner with 
Montenegro, and will look for a commitment to stability, rule of law 
and growth. U.S. businesses also seek transparency and predictability 
in business practices; programs such as the recent Balkan Coordinated 
Border Management workshop in Podgorica organized by the Commerce 
Department's Commercial Law Development Program in collaboration with 
the Customs committee of Montenegro and its regional partners is an 
example of how our countries can work together to successfully 
strengthen and facilitate trade flows within the region. I see other 
exciting developments in the country, such as the Krnovo Wind Farm 
which is the first in Montenegro and the most powerful in the region. 
Funded through the European Bank for Reconstruction and Development, 
this project, proudly powered by 26 General Electric turbines, came on-
line in November of 2017 and is now supplying electricity to 45,000 
households. Thanks to this project, Montenegro can now deliver 40 
percent of its domestically generated electricity from clean energy 
sources. There are many more opportunities for U.S. firms to partner 
with Montenegro in sectors such as energy, tourism, health and 
agriculture and, if confirmed, I will commit the U.S. Embassy in 
Podgorica to help make these deals happen.
    Finally, my third goal as U.S. Ambassador to Montenegro will be to 
assure a deepening and broadening of our public engagement in the 
country to help the people of Montenegro understand American values, 
policies and principles. I commit to personalized engagement with the 
Government, with civil society, and with people on the street with a 
goal of building trust and correcting misperceptions. Working with the 
Embassy's stellar staff of American and Montenegrin professionals, we 
will build on my predecessor's effective legacy of people-to-people 
engagement. I am personally driven to explore partnerships that will 
help to preserve this country's rich cultural patrimony, to advance 
inclusion and diversity, and to address environmental issues that 
threaten to degrade the country's precious touristic resources.
    The people of Montenegro have been engaged in a vital and exciting 
dialogue on the direction of the country's future, and the team at the 
U.S. Embassy is working hard to support these important discussions. I 
am eager to join them. If confirmed, I commit myself to demonstrate to 
the people of Montenegro by my words, and by my actions, that the U.S. 
is a friend, a partner and a committed Ally. Moreover, I assure the 
committee that I will protect American interests, ensure the fair 
treatment of American citizens, and promote American values with every 
engagement I have with the Government of Montenegro and its people. 
Thank you for this opportunity to appear before you, and I look forward 
to answering your questions.


    Senator Johnson. Thank you, Ms. Reinke.
    Out of respect to my colleagues' time, I will defer my 
questions to the end. So Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you again all of you for being here. Thank you for bringing 
your families with you. I know this is a joint concern 
representing the United States abroad, and so I thank all of 
the family who are here for their service to the country as 
well, and to those family members who will serve, we thank you 
in advance.
    Mr. Kosnett, I wanted to start with you in part because 
there is some relative news of the day surrounding the U.S. 
position on dialog between Kosovo and Serbia that maybe we can 
try to clear up here today as you are heading off to this post.
    Serbian Foreign Minister Dacic, who is a good friend of 
many of us on this committee, met behind closed doors with 
Jared Kushner in late July. And after that meeting he said 
something to the effect of the U.S. position is now more tuned 
to our positions. That has set off some wild speculation in the 
region as to what the change in U.S. position is.
    The worry amongst many is that the United States is now 
much more amenable to something called land swaps, the idea 
that you would incorporate some Serbian populations that are 
currently in Kosovo into Serbia in exchange for other pieces of 
land. This is something that has been off limits in the past.
    Phil Gordon said in 2013 that there is no way for borders 
in this region to be redrawn along ethnically clean lines, as 
such partition and land swaps are unacceptable solutions.
    What instructions do you have going to Kosovo with respect 
to the U.S. position on land swaps, and has it changed, given 
these comments from Dacic?
    Mr. Kosnett. Senator Murphy, thank you very much for 
raising this key question. I would say that our position has 
not changed. The position of the administration is that we 
support the EU-facilitated dialog between Pristina and 
Belgrade. We think it is important that both governments and 
other stakeholders in these countries move forward with 
creative thinking about ways to overcome the longstanding 
tensions between Kosovo and Serbia.
    We think it is critical that both countries be able to 
discuss new ideas. But that is not a code word for land swap or 
any specific--any specific course of action. We very much want 
to see what sort of ideas the two governments come up with in 
the context of the dialog.
    But our overall strategic goal is to see stability in the 
region, a resolution of the longstanding tensions, 
disagreements between Serbia and Kosovo, in a manner that will 
facilitate both countries stronger ties with the West.
    Senator Murphy. My understanding is that the State 
Department has received no readout on this meeting between the 
Serbian foreign minister and Mr. Kushner. Do you know if my 
understanding is wrong? Do you know whether the State 
Department has a readout of what was discussed?
    Mr. Kosnett. Senator, I will tell you honestly, this is the 
first I have heard of that particular meeting.
    Senator Murphy. Okay.
    Mr. Kosnett. I certainly look forward to finding out more 
about it.
    Senator Murphy. Okay. Thank you.
    Mr. Hogan, what a time to be heading to Moldova. This is a 
population that seems to be slowly shifting in favor of 
European integration. It obviously remains a key question, and 
one in which the outside player of the Kremlin has a lot to say 
about.
    Senator Portman, and I, and many others worked on setting 
up a capacity inside the State Department called the Global 
Engagement Center. And the idea was to try to help seed 
independent objective journalism in places that did not have a 
long history of it.
    Moldova is a place in which if you are willing to sell the 
rights to the stories you tell, you will have a willing buyer 
across the border in Russia. So it seems like a place where the 
United States could really help stand up real objective story 
telling about what the stakes are for Moldova moving forward.
    That is one way that the U.S. can help, trying to tell the 
true story of what European and Euro-Atlantic integration will 
mean for Moldova. What are some other ways that you think that 
the U.S. can play a constructive role here as Moldova decides 
which way they want to go?
    Mr. Hogan. Thank you, Senator, for that--for that question. 
And I have had the opportunity to meet with the leadership with 
the Global Engagement Center, and talk about if confirmed how 
we could work together to really counter this barrage of 
Russian disinformation.
    I believe our embassy, and with the strong support of the 
interagency back here in Washington, is actively working on 
just this very problem set, which is to provide the Moldovan 
people with accurate information, and as well as to improve the 
media literacy in the country as well, so that the Moldovan 
people know what real news looks like, what it actually is, 
accurate information.
    And so there is a lot of effort going. A lot of our 
technical assistance capacity ability, both when it comes to 
the Government entities that regulate a media, but as well as 
civil society, political parties, how they can play a greater 
role in this effort to provide the Moldovan people with 
accurate information.
    Senator Murphy. Great. Thank you.
    Ms. Blanchard, I certainly do not expect you to be as read 
in as career members of the Civil Foreign Service are, and into 
the book of business that you are going to undertake. But you 
are showing up or will be showing up in Slovenia at a very 
interesting political moment. The anti-immigrant SKS Party has 
won the most seats in Parliament, but nobody really seems to 
want to partner with them. So as of this hearing we do not have 
a government.
    There is a range of anti-immigrant parties in Europe. Some 
are too hot for the taste of others, and for the United States. 
Others are a little bit more mainstream. In getting ready for 
this post, what is, what is your sense of the SKS party? Is 
this somebody that the United States--is this a party that the 
United States can do business with, or is this a political 
movement that we should be worried about from an American 
perspective?
    Ms. Blanchard. Thank you for that question, Senator. From 
what I have read on the issue I believe that the U.S. should be 
excited about this new partnership, the new government. From 
what I have learned, they are interested in similar things with 
keeping with the EU, as always. And we encourage that as a U.S. 
partner or EU partnerships to strengthen them. And I am 
encouraged to work with the new government and try to make a 
difference with their trade increase amounts. To me it is an 
opportunity.
    Senator Murphy. Are you talking about the potential new 
government that is going to be formed?
    Ms. Blanchard. Yes. Yes.
    Senator Murphy. Okay. Yeah. I think you may--we may want 
to--you may want to clarify those views. I think the SKS party 
is a pretty hardline anti-immigrant party that no one is 
willing to partner with right now. And so the party who has got 
the second leading number of seats is going to be attempting to 
form a government. So I think you are probably referring to the 
potential new government, not necessarily to the SKS Party.
    Ms. Blanchard. I am. You are correct. I am referring to 
that. I was told that they might form as soon as tomorrow.
    Senator Murphy. Right. Okay. Great. I will leave it at 
that. I might have a second round, if we are doing it, but I 
will let others go.
    Senator Johnson. Senator Kaine.
    Senator Kaine. Thank you. And I want to applaud the Chair 
and Ranking for your very careful focus on this area of the 
world, which is not my area of focus, and I am here to learn. 
And I want to congratulate all of you for being nominated. I 
think a panel like this shows the sort of best of what the 
career Foreign Service is, career diplomats are, and it also 
shows why political diplomats are important to people who have 
a demonstrated track record of philanthropy, and nations around 
the world wanting to represent our country, but also to help 
people elsewhere. That is exactly the kind of person that we 
intend to have and should have as political ambassadors. So 
thanks to all of you.
    And I will also say, Mr. Chair, that, you know, Virginia 
does not demand every Senate confirmable position, but three-
quarters seems about right to me. [Laughter.]
    Senator Kaine. That seems to be about a good ratio.
    Senator Johnson. Did you want to do an introductions? 
[Laughter.]
    Senator Kaine. I love this committee, because it is 
educational. And Mr. Kosnett, I am going to do something that I 
ever do at a committee. I am not going to ask you for what 
you--I am not going to ask you about what you have been 
nominated for. I am going to try to take advantage of the fact 
that you have been in Turkey for the last 2 years.
    We spend a lot of time in this committee, and I am also on 
the Armed Services committee, talking about the U.S.-Turkey 
relationship. And it is very, very tough right now. When we ask 
our military leadership and Armed Services committees to give 
us advice about the U.S.-Turkey relationship, they say it is 
one of the toughest challenges that they have.
    We have had a wonderful long relationship with Turkey as a 
NATO ally, incredibly important, the use of Incirlik Air Force 
base at Adana has been really important to us in the anti-ISIL 
campaign, for example. And yet, we have some very serious 
challenges, differences of opinion with Turkey with respect to 
U.S. partnership with the Kurds and Northern Syria. They are 
deeply worried about Muhammed Gulen's presence in the United 
States. We are deeply worried about their imprisonment of 
Pastor Brunson. They have recently put him in house arrest out 
of a prison. Yet still, he is in Turkey against his will.
    We are grappling with a challenge Turkey, where they are 
contemplating purchase of Russian military technology that 
would require that we sanction them. And yet, components to the 
F-35 that we are relying upon for our military air advantage in 
the future are manufactured in Turkey.
    The back and forth on sanctions has created a lot of very, 
very difficult rhetoric between Turkey and the United States. 
And so what I really wanted to just ask you, and this is the 
only question I really wanted to ask is, based on your 
experience there, can you give us some advice, as Congress, not 
the Executive, but as Congress, what might we do, based on your 
experience, to improve the U.S.-Turkey relationship, and 
hopefully get it into a better place?
    Mr. Kosnett. Thank you very much, Senator Kaine. And before 
I attempt to answer that question, I should note for the record 
that I have completed my tour as charge in Ankara, and the 
developments in the relationship between Turkey and the United 
States are changing every day. So I need to be careful----
    Senator Kaine. Yeah.
    Mr. Kosnett [continuing]. About not speculating about the 
future. Okay. Having said that, as you said, Senator, the 
relationship, the partnership between the United States and 
Turkey has been of great value to both countries for more than 
half a century. And even in the past 2 years, when there have 
been, you know, great tensions, great frustrations on both 
sides, out of the--out of the spotlight our cooperation has 
continued in many fields, in counterterrorism, including the 
war against ISIS, in regional security, trade, and investment. 
There are many great opportunities in the relationship.
    And I would like to believe, and I do believe that the 
people and governments of both countries recognize how much is 
at stake when relations are in the sort of situation we are 
now, and how important it is for us to overcome the existing 
problems.
    To specifically answer your question about the role of 
Congress, I have observed in the past 2 years how very 
important it has been for the Government of Turkey to 
understand that on the key issues between us, most notably the 
status of American citizens and employees of the U.S. 
diplomatic mission, who are being detained on what we consider 
to be unreasonable spacious charges, without any compelling 
evidence, that there is no daylight between the Congress and 
the administration.
    And I believe that we have also demonstrated that there is, 
you know, complete consensus on both sides of the aisle that 
there is nothing more important in our relationship with Turkey 
than making sure that American citizens overseas are not 
subject to unreasonable prosecution, and that we will do our 
part to make sure that our people abroad have due process and 
are treated in a transparent fashion by the judicial system. 
Okay.
    Long answer. I think that--if I may, I think the Congress 
is doing exactly the right thing, partnering very closely with 
the administration, demonstrating to the Government and people 
of Turkey that these are not tactical political issues. These 
issues get to the very heart of who we are as Americans, and we 
are going to continue to protect our people overseas no matter 
how difficult that makes other aspects of the relationship.
    Senator Kaine. One of the issues that has gotten a lot of 
attention is the imprisonment of Pastor Brunson, and there have 
been suggestions in the past from Turkey, well, you know, we 
have one of your pastors, but you have a pastor, Muhammed 
Gulen, living in Pennsylvania. Give us yours and we will give 
you ours.
    My understanding of the U.S. policy, which I would agree 
with, and I hope this is still the policy, is we would not want 
to harbor anybody in the United States who has done bad things 
elsewhere, and would be subject to extradition pursuant to the 
rules of law, and the treaty between the United States and 
Turkey, dealing with extradition issues.
    If anybody is here who, subject to the rule of law and that 
treaty, should be extradited, I would like the U.S. to follow 
the laws, follow the process to do that. But I also believe 
that we should not be swapping people in contravention of laws 
or contravention of treaties.
    Is that your understanding of the current U.S. posture with 
respect to the Turkish demands, with respect to Gulen, or 
anybody else? Our position is if there is evidence that would 
suggest that pursuant to legal process and the U.S. treaty, 
extradition treaty, that somebody should be extradited, then we 
can talk. But if there is not, that it is not like we just sort 
of swap people around. Is that your understanding?
    Mr. Kosnett. Senator Kaine, that is exactly correct. The 
U.S. Justice Department has consulted at great length with its 
Turkish counterparts to make sure that the Turks understand the 
terms of our extradition treaty, and make the best case 
possible whenever they wish to extradite any suspect.
    Senator Kaine. Uh-huh.
    Mr. Kosnett. I should note, because this sometimes does not 
get as much attention as it should, that the coup attempt in--
--
    Senator Kaine. 2016.
    Mr. Kosnett [continuing]. July of 2016 was a serious 
assault, not just on the Erdogan Government, but on the Turkish 
nation.
    Senator Kaine. Uh-huh.
    Mr. Kosnett. And we respect the need for Turkey to do 
everything reasonable to ensure that nothing like that happens 
again.
    Senator Kaine. Uh-huh.
    Mr. Kosnett. But as you said in your statement, Senator, we 
have to take the actions we are going to take in accordance 
with our laws. And we cannot just, you know, treat people as 
trade goods.
    Senator Kaine. Mr. Chair, thanks for indulging me on that. 
I could not resist the opportunity to learn from somebody who 
has been there for 2 years on an issue that is really important 
to the committee. I appreciate it.
    Senator Johnson. No. It was a good--this line of 
questioning is what we talked about in my office yesterday, as 
a matter of fact. So thank you. Appreciate your attendance.
    I always tend to, in these hearings, go back to economic 
issues. Ms. Reinke, it is noteworthy, obviously, that you were 
with the Commerce Department, and congratulations on this 
nomination.
    We spoke a little bit in terms of Montenegro, and I was 
there. Some pretty, from my standpoint, surprising polling 
results. Fifty percent of young people in Montenegro, their 
aspirations join the Government, where--well, let us face it, 
that, in these countries, is where security, economic security 
has always presided. The problem is that does not help grow an 
economy.
    Bosnia, the result was 70 percent. And I do not have the 
polling results on the other nations being represented here. 
But my guess is it is a similar type of problem. So I guess, 
having discussed that yesterday, I am just wondering if you 
have given any thought in what as an ambassador you could 
potentially do to help break through that.
    Ms. Reinke. Thank you, Senator Johnson. I am glad you asked 
the question. I enjoyed the discussion yesterday, and I think 
it is really part of what I am hopefully going to be able to 
bring to the job, if confirmed.
    I made reference in my second point, my second priority, 
that I really want to work with the Government of Montenegro as 
they strengthen the institutions and the environment that will 
allow businesses to flourish. Rule of law, transparency, 
predictability, these are all things that are, first of all, 
necessary for their efforts to accede to the European Union, 
which is a process.
    But those reforms and the implementation of those reforms 
will create an environment where businesses can flourish in 
Montenegro, both their own businesses and, of course, in our 
case, the United States has businesses who would love to 
partner with companies in Montenegro. But entrepreneurship, and 
I think that is going to your point, is not yet something that 
has grabbed hold of the heart of the young people, and those 
who are looking for opportunity.
    And I hope that I can work with the Government to identify 
ways to, we talk about marketing the beauty of the country, 
marketing the goods of the country, unique products, such as 
their prosciuttos and their cheeses, and I think you know of 
cheeses. So it is the kind of thing that would----
    Senator Johnson. We do not want a whole lot of competition. 
[Laughter.]
    Ms. Reinke. No. Not yet. I have said they punch above their 
weight, and I think that these are the kinds of things that the 
country will bring to the world. And these are opportunities to 
bring strength in the economy, prosperity to the people, and I 
believe a prosperous and stable Montenegro is good for the 
region, and it is good for America.
    Senator Johnson. The table stakes is you need security. But 
that is not only national security, but you need the economic 
security. These nations are under pressure from Russia. You 
know, Montenegro, that was--that was an act of war that had 
actually been carried out. Russia does not recognize Kosovo, 
which is why they are so wildly popular in Serbia.
    We know the throes of conflict in Transnistria with 
Moldova, so they have those challenges. They really do need to 
proceed economically. So I will just keep going down the list.
    Mr. Kosnett, what can we do in terms of Kosovo, you know, 
utilizing our relationship between the U.S. and Kosovo to help 
build their economy, because that also helps their economic and 
national security.
    Mr. Kosnett. Thank you, Mr. Chairman.
    Well, I think right now we are seeing that some foreign 
companies, not only American companies, are reluctant to invest 
in a significant fashion in Kosovo, in large part because of 
their concerns about rule of law. Companies have to know that 
if they are going to get involved in business overseas, and 
they get into a dispute with a local partner, that they are 
going to get a fair shake. And this is just one of the many 
reasons why helping the Government and people of Kosovo to 
strengthen rule of law, to counter corruption is so important 
to us.
    There has been an increase in interest from American 
business, you know, small businesses like food franchises, but 
also a major hotel company that is opening there. And the 
biggest project is ContourGlobal's proposal for a $1.4 billion 
power plant. I mentioned that in particular because we believe 
that being able to regularize the power grid in Kosovo is going 
to have a potentially huge effect for the economy, and create 
opportunities in manufacturing that do not exist now, because 
there is just no reliable power grid. And as I mentioned in my 
opening statement it is costing something like $415 billion a 
year.
    So I think, of course, we can continue to encourage 
American business to take a close look at Kosovo, but, as you 
know, companies are only going to invest where it makes 
business sense.
    Senator Johnson. Mr. Hogan, basically same question.
    Mr. Hogan. Thank you, Senator. I would say that there is an 
entrepreneurial spirit in Moldova. The Government has set up a 
number of free trade zones, where businesses can come in and 
set up shop there. We see 60 percent--67 percent of the goods 
and services from Moldova going to Europe. Years ago, the 
numbers were going in the opposite direction, in terms of the 
trajectory. So there is some--there is some progress there.
    Just as my colleague, Mr. Kosnett said, of course, rule of 
law, corruption serve as major impediments. Businesses, U.S. 
businesses, in particular, want to go where they know that the 
playing field is level, it is fair, transparent. And so we are 
actively working in that regard, in terms of our U.S. 
assistance, as well as public diplomacy, and even diplomatic 
engagement. So we take that point very seriously.
    I would also like to add that energy security is similarly 
important, in terms of the country's ability to be able to 
receive electricity, to be integrated into the European 
markets, both on electricity, as well as gas. That also serves 
as a firm foundation for this economic growth that we are both 
so interested in.
    Thank you.
    Senator Johnson. I was struck when we visited Moldova how 
the Soviet Union basically tapped that country as their wine 
region. So that is some more potential.
    Ms. Blanchard, just talk again about the potential economic 
cooperation between the U.S. and Slovenia.
    Ms. Blanchard. Well, our trade is small, and I encourage 
all trade through our partnership, our bilateral partnership. 
Working with Slovenia, if confirmed, I am excited that there is 
a lot of opportunity, because we have such small trade. I am 
encouraged that at the moment, for 2017, there was five percent 
GDP growth. 2018 seems to be the same. And I am excited to 
partner in trying to bring in business and profit opportunities 
for the country of Slovenia.
    Senator Johnson. Thank you. Senator Murphy.
    Senator Murphy. A few more questions.
    Ms. Reinke, you know, our incentive system around 
Montenegro and reform was NATO membership for a long time. And 
we are glad to now have them as part of the coalition. But now 
the series of incentives that remain to make progress that 
still needs to be made is EU integration. And that dream seems 
more like a dream than a reality as time goes on for a lot of 
countries in the Balkan region, that there are others that fit 
the same bill.
    How do you see the Ambassador's role to try to make clear 
that there is still reason to engage in reform, that the EU is 
still a potential landing spot for Montenegro, regardless of 
the turmoil that is happening today inside the association? How 
do you push them to keep reforming now that NATO has been 
settled, at least for the time being?
    Ms. Reinke. Thank you, Senator Murphy. It is an excellent 
question. And it is the kind of thing I am thinking about, 
because, EU is a very attractive goal for the country. I think 
the decision to pursue accession is a brave one. It is the 
right one. But it does not seem as immediate for the people or 
the Government, with a target right now as early as 2025. 
People get impatient.
    What I hope to convey is the kind of reforms we are talking 
about, the chapters that remain to be addressed and closed 
provisionally as they pursue accession, involve the same things 
my colleagues have talked about. The rule of law, and how the 
Government treats businesses. And if Montenegro is able to 
recognize that those reforms in and of themselves will attract 
business, will stimulate entrepreneurship, will bring in 
investment, those are the messages I would like to convey.
    And I think the benefit of pursuing that very long, maybe 
very bureaucraticy accession procession, I will try to put that 
aside and talk about the more immediate benefits of making the 
reforms and giving an opportunity for the businesses to 
respond. So those are the messages I will be discussing.
    Senator Murphy. Well, I am glad you have given some thought 
to that already. Two more questions.
    Mr. Kosnett, I actually had a question relative to your 
experience in Turkey as well. You know, most people here in the 
United States and across the world may have forgotten about the 
Ottoman Empire, but the Turks have not. And Kosovo was part of 
the Ottoman Empire, as well as much of the region, for 500 
years. And so we tend to talk a lot in this committee about 
Russia's interest in the Balkan region, but the Turks have a 
lot of interest in the region as well, and specifically in 
Kosovo.
    I would love just for you to talk a minute about what 
Turkey's interests are in the Balkans, and how those either 
align or conflict with U.S. goals in the region. And you can 
drill down on Kosovo or not. I am more interested in the 
broader answer.
    Mr. Kosnett. Well, thank you, Senator. I think Turkey sees 
itself very much as a rising power, and not just in military 
terms, but in soft power terms, in the Middle East, in the 
Balkans, in Central Asia. And I think there is a renewed 
interest in Turkey among Turks of all backgrounds, a renewed 
sense of pride in their heritage, in their Ottoman past. And 
you see that in pop culture, where T.V. shows about the Ottoman 
Empire are all the rage. But beyond that, I think they see 
themselves as on the upswing now, as a country of increasing 
importance.
    And there are many areas where our interests do align, and 
I would submit that Kosovo is one of those areas, that there is 
significant Turkish investment there. There are Turkish troops 
in KFOR who play an important role, not just in providing 
security, but also in professionalizing the Kosovo security 
forces.
    I think that if confirmed, you know, I can look forward to 
working with my Turkish counterpart to try to find ways for us 
to sync up our efforts to support anti-corruption and economic 
development in Kosovo.
    Senator Murphy. I think it is a real opportunity to have 
someone with your backgrounds in Pristina. So I have one more 
question for Ms. Blanchard, but we are running long, so I will 
let it go. Thank you all for your testimony here today.
    Senator Johnson. I just want to follow-up a little more in 
terms of Kosovo. We talked about Turkish influence. I think one 
of the concerns of people in the region would be potentially 
radicalization of the Muslim population there. Can you speak a 
little bit about any knowledge you have, either you or Mr. 
Hogan, having been in the Middle East, and seeing Wahhabism 
spread, and that concern in that region.
    Mr. Kosnett. Okay. Well, I will be happy to start, and then 
Dereck--my friend Dereck can expand and correct my remarks.
    I think that the Government of Kosovo has made a real 
effort in the last 3 years to tackle head-on the problem of 
radicalism, of violent extremism in Kosovo. As I mentioned in 
my opening remarks, they made a good start with legislation, 
which is a model for the region, and beyond that, they have 
arrested more than 200 people. They have shut down NGOs.
    Beyond that, and that is, in a sense, dealing with the 
symptoms, you know, I think that the Government of Kosovo and 
other stakeholders are making a real effort to look at, to coin 
a phrase, the root causes of terrorism in Kosovo. And I look 
forward, if confirmed, to digging into this more deeply, you 
know, when I get there. But my understanding is that there have 
been problems in the past because of extreme poverty, and 
people's alienation. Some young people sense that they do not 
have a future there, that they have been attracted to ISIS 
ideology. This is certainly not unique to Kosovo.
    Earlier in my career I spent many years working on 
counterterrorism issues, so this is a particular interest of 
mine, and I think it continues to be a priority on an 
interagency basis for our team in Pristina.
    Senator Johnson. Thank you. Mr. Hogan.
    Mr. Hogan. Thank you, Senator. I am not aware of any 
serious concern of radical Islam in Moldova, but, of course, I 
will look into that, and if there is, I will get back to you on 
that.
    And I would just say that I--my understanding is that there 
is a fair sense of--or a good measure of tolerance and 
inclusivity in Moldova. So I would be surprised if there were, 
but like I said, when I get on the ground, if confirmed, I 
would get into that. Thank you.
    Senator Johnson. Okay. Anybody have any further questions?
    Senator Murphy. I do not have a question. Just a follow-up, 
I think, on your very good first question, which is, you know, 
we do increasingly hear these reports of, you know, if not 
radicalization, increasing influence of Wahhabism and 
conservative Islam in the region.
    For instance, if you walk around the Albanian sections of 
Montenegro today you will see women wearing head coverings in a 
way that you did not even 5 to 10 years ago. And the stories 
are that some of them have made the choice to do that. Others 
are being paid to do that by certain clerics and certain 
mosques that are being funded from the outside.
    And so I just raise it as something that I hope, you know, 
in particular, those that are going to countries with large 
Muslim populations will pay attention to, because I think we 
are really endeavoring to try to get information here. So 
appreciate you guys paying attention to that.
    Senator Johnson. Again, we want to thank our nominees for 
your willingness to serve, your families. It is an all-
consuming type of occupation. So we really do appreciate that.
    With that, the hearing record will remain open for 
statements or questions until the close of business on Friday, 
August 17th. This hearing is adjourned.


    [Whereupon, at 3:41 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
               Lynda Blanchard by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career I have focused on several areas 
related to fostering human rights, including advocating for the rights 
of orphaned children as well as providing opportunities to further 
their education and become active members of the future generations of 
leaders. My work in Malawi began 15 years ago. The organization I 
founded partnered with a tribal chief and opened an orphanage that has 
housed approximately 150 children and employed 44 locals each year. 
Over time our focus broadened from providing nurturing homes to 
affording educational opportunities for the future. Our organization 
now facilitates partnerships between universities here in the United 
States and universities and government agencies in Malawi. These 
partnerships have created the opportunity for online education to be 
introduced to Malawi, created the first PhD in Nursing program, and 
most importantly, they have doubled the number of university-awarded 
degrees in Malawi. These programs have and will continue to supply 
educational opportunities for generations of young people there.
    Building on the experience in Malawi, my organization expanded our 
efforts to Moldova, where we endeavored to create secondary housing for 
orphans who were being released at an early age by edicts from the 
Government. Because these individuals were still quite young, they were 
at risk of becoming victims of many nefarious pursuits, including human 
trafficking. Starting with one secondary home, we then grew to five 
homes as well as a refurbished government orphanage. Based on our 
efforts in Moldova, my organization was presented in British Parliament 
as a best practice for Trafficking Prevention.
    Due to the success of our efforts in Malawi and Moldova, we have 
built homes in Mexico and Peru to provide room and board as well as an 
education for 160 orphans. Similarly, in India we joined with other 
organizations to construct three orphanages in three different states. 
Each orphanage provides housing, educational programs, and spiritual 
services. Additionally, though my organization does not own these 
properties, we have supported orphan care in Honduras, China, Russia, 
and Haiti. Finally, we have also supported other projects in Zimbabwe, 
including a church and a medical clinic.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Slovenia? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Slovenia has a strong record on human rights and democracy. 
Among the challenges Slovenia faces, according to The State 
Department's annual Human Rights and International Religious Freedom 
Reports, is localized discrimination against minority groups, such as 
Roma. Additionally, while Slovenian law prohibits discrimination based 
on sexual orientation, some societal discrimination still occurs.
    The United States Government engages the Slovenian Government 
regarding a small number of outstanding Holocaust-era restitution 
claims, and the Slovenian Government has recently agreed to conduct a 
joint-research project with the World Jewish Restitution Organization 
to identify heirless properties in Slovenia.
    If confirmed, I will continue our work advocating for increased 
tolerance for all.
    Question 3. What steps will you take--if confirmed--to support 
democracy in Slovenia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Slovenia and the United States share common values, 
including the importance of protecting human rights and supporting 
democracy. The country has a diverse and active civil society, with 
independent groups that report and advocate on the issues they care 
about around the country.
    If confirmed, I will continue the U.S. Embassy's regular engagement 
with these groups on some of the most pressing issues, and I will 
continue our work with Slovenians to ensure the coordination of our 
efforts on promoting tolerance through civil society empowerment and 
coalition building. By ensuring that we keep lines of communication 
open, we will maximize our joint impact on this and other challenges.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. As an EU member and World Bank-designated ``high income 
country,'' Slovenia has ``graduated'' from U.S. development assistance. 
The U.S. Government nevertheless remains committed to using public 
diplomacy and other resources at our disposal to support small-scale 
projects to promote democracy and good governance, and to counter 
Russian disinformation.
    Recent examples of such projects include the following: support for 
International Military Education and Training (IMET)-funded 
opportunities for the Slovenian Armed Forces; organization of a series 
of regional training events for government communicators, with an 
emphasis on fighting disinformation; support for robust civil society 
and NGO programming on migration; work with incubators and accelerators 
to promote entrepreneurship; and extensive outreach to journalists. The 
U.S. Embassy has also doubled the number of participants in various 
exchange programs over the past two years.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Slovenia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Slovenia, including human rights 
activists and religious groups and the organizations that represent 
them. If confirmed, I will pay close attention to developments in this 
sector and am prepared to speak privately--and publicly if necessary--
if there are any efforts to restrict NGOS and civil society through 
legal or regulatory measures.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Slovenia's constitution and laws provide citizens the 
ability to choose their government in free and fair periodic elections 
based on universal and equal suffrage. No laws limit the participation 
of women and minorities in the political process. In the last 
presidential election, five of the nine candidates were women, and the 
cabinet included eight women ministers. Slovenia's citizens elected a 
new parliament on June 3, which on August 17 is expected to give the 
leader of a new party, Marjan Sarec, a mandate to form a new 
government. The constitution guarantees that the National Assembly 
always includes one member each from the Hungarian and Italian 
minorities.
    If confirmed, I am committed to meet with a broad array of 
democratically-oriented political opposition figures and parties and 
will advocate for broad access to and inclusion in political processes.

    Question 7. Will you and your embassy team actively engage with 
Slovenia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Slovenia?

    Answer. Slovenia has a strong record of press freedom. If 
confirmed, I am committed to sustained engagement with Slovenia on 
freedom of expression, including freedom of the press and addressing 
any political or economic forces that might be designed to undermine 
press freedom. If confirmed, I am committed to meeting regularly with 
the professional press in Slovenia.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country? On corruption and illicit financial activity used by outside 
actors to influence political developments in the country?

    Answer. If confirmed, I will actively engage with media, civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign states or non-state actors, as well 
as on corruption and illicit financial activity by outside actors to 
influence political developments in Slovenia. If confirmed, I will 
ensure Embassy Ljubljana is equally engaged and reports through regular 
State Department channels on these issues.

    Question 9. Will you and your embassy teams actively engage with 
Slovenia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Slovenia has a strong record of labor freedom and advocacy. 
If confirmed, I will ensure Embassy Ljubljana will actively engage with 
Slovenia on the right of labor groups to organize, including for 
independent trade unions.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Slovenia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Slovenia? What specifically will you commit to do to help LGBTI 
people in Slovenia?

    Answer. If confirmed, I am committed to using my position to defend 
the human rights and dignity of all people in Slovenia, no matter their 
sexual orientation or gender identity. While Slovenian law prohibits 
discrimination based on sexual orientation, there is still societal 
discrimination. The Slovenian Government formally established an 
independent Office of the Advocate of the Principle of Equality in 2017 
to investigate claims of discrimination and safeguard the rights of 
LGBTI persons.
    If confirmed, I will pay close attention to developments in this 
sector and am prepared to speak privately--and publicly if necessary--
about the importance of human rights and dignity of all people in 
Slovenia, no matter their sexual orientation or gender identity.
Russia Sanctions
    Question 11. Unity with European partners on Russia sanctions is 
critical to their success. What is your diplomatic plan to build 
support within Slovenia for stronger EU sanctions on Russia?

    Answer. Slovenia is a NATO Ally that shares our interests and 
values. Slovenia is also a strong proponent of U.S.-EU cooperation and 
a strong supporter of EU solidarity. It is a vocal supporter of 
Ukrainian sovereignty and territorial integrity and has been a 
steadfast partner in sustaining EU consensus on Ukraine-related 
sanctions on Russia pending implementation of the Minsk Agreements and 
reversal of its illegal attempted annexation of Crimea. Slovenia has 
been firm in its position that Russia's purported annexation of Crimea 
is a violation of international law.If confirmed, I will actively 
engage with the Slovenian Government and public to reinforce U.S. 
policy objectives on Russian sanctions and strengthen support for 
policies that align with U.S. Government interests.

    Question 12. How will you seek to boost resilience to Russian 
meddling within Slovenian institutions and civil society? What 
assistance and regional coordination priorities will you push with 
Slovenian counterparts to shore up resilience elsewhere in Europe?

    Answer. Although many Central European countries, including 
Slovenia, have ``graduated'' from U.S. development assistance, the U.S. 
Government remains committed to helping these countries to build 
resilience to Russian pressure. The United States is seeking additional 
ways to work with Central European Governmental and non-governmental 
partners to counter disinformation, enhance energy security, and 
strengthen governance, including initiatives to bolster regional 
partnerships to counter Russian malign influence efforts. Embassy 
Ljubljana's priorities include partnering with Slovenian public and 
private entities in public diplomacy efforts to counter Russia's malign 
activities by a variety of means.

    Question 13. Given concerns that an anti-immigrant party which took 
the most votes in Slovenia's June elections will boost space for 
xenophobia in the country, how will you seek to promote the human 
rights of minorities and migrants?

    Answer. The United States and Slovenia share common values and 
interests, including the importance of combatting all forms of 
intolerance, and the U.S. Government regularly engages on these issues, 
to include a robust, on-going campaign of public outreach. If 
confirmed, I will sustain this engagement, speak out against 
discrimination against minorities, and urge like-minded partners to 
join me in denouncing hate speech, attacks, and discrimination and 
xenophobia in all forms. I believe the best approach to addressing 
intolerance is through education, open dialogue, and unfettered 
discussion. If confirmed, I would promote interfaith initiatives, as 
well as Holocaust, and related tolerance education efforts, especially 
among young Slovenians.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Lynda Blanchard by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career I have focused on several areas 
related to fostering human rights, including advocating for the rights 
of orphaned children as well as providing opportunities to further 
their education and become active members of the future generations of 
leaders. My work in Malawi began 15 years ago. The organization I 
founded partnered with a tribal chief and opened an orphanage that has 
housed approximately 150 children and employed 44 locals each year. 
Over time our focus broadened from providing nurturing homes to 
affording educational opportunities for the future. Our organization 
now facilitates partnerships between universities here in the United 
States and universities and government agencies in Malawi. These 
partnerships have created the opportunity for online education to be 
introduced to Malawi, created the first PhD in Nursing program, and 
most importantly, they have doubled the number of university-awarded 
degrees in Malawi. These programs have and will continue to supply 
educational opportunities for generations of young people there.
    Building on the experience in Malawi, my organization expanded our 
efforts to Moldova, where we endeavored to create secondary housing for 
orphans who were being released at an early age by edicts from the 
Government. Because these individuals were still quite young, they were 
at risk of becoming victims of many nefarious pursuits, including human 
trafficking. Starting with one secondary home, we then grew to five 
homes as well as a refurbished government orphanage. Based on our 
efforts in Moldova, my organization was presented in British Parliament 
as a best practice for Trafficking Prevention.
    Due to the success of our efforts in Malawi and Moldova, we have 
built homes in Mexico and Peru to provide room and board as well as an 
education for 160 orphans. Similarly, in India we joined with other 
organizations to construct three orphanages in three different states. 
Each orphanage provides housing, educational programs, and spiritual 
services. Additionally, though my organization does not own these 
properties, we have supported orphan care in Honduras, China, Russia, 
and Haiti. Finally, we have also supported other projects in Zimbabwe, 
including a church and a medical clinic.

    Question 2. What are the most pressing human rights issues in 
Slovenia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Slovenia? What do 
you hope to accomplish through these actions?

    Answer. Slovenia has a strong record on human rights and democracy. 
Among the challenges Slovenia faces, according to The State 
Department's annual Human Rights and International Religious Freedom 
Reports, is localized discrimination against minority groups, such as 
Roma. Additionally, while Slovenian law prohibits discrimination based 
on sexual orientation, some societal discrimination still occurs. The 
United States Government engages the Slovenian Government regarding a 
small number of outstanding Holocaust-era restitution claims, and the 
Slovenian Government has recently agreed to conduct a joint-research 
project with the World Jewish Restitution Organization to identify 
heirless properties in Slovenia.
    If confirmed, I will continue our work advocating for increased 
tolerance for all.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Slovenia in 
advancing human rights, civil society and democracy in general?

    Answer. Slovenia and the United States share common values, 
including the importance of protecting human rights and supporting 
democracy. The country has a diverse and active civil society, with 
independent groups that report and advocate on the issues they care 
about around the country. If confirmed, I will continue the U.S. 
Embassy's regular engagement with these groups on some of the most 
pressing issues, and I will continue our work with Slovenians to ensure 
the coordination of our efforts on promoting tolerance through civil 
society empowerment and coalition building. By ensuring that we keep 
lines of communication open, we will maximize our joint impact on this 
and other challenges.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Slovenia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Slovenia, including human rights 
activists and religious groups and the organizations that represent 
them. If confirmed, I will make sure the Embassy applies all 
appropriate laws and regulations to ensure eligibility and compliance 
under the Leahy law.

    Question 5. Will you and your embassy team actively engage with 
Slovenia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Slovenia?

    Answer. The State Department's 2017 Human Rights Report states that 
there were no reports of political prisoners in Slovenia.

    Question 6. Will you engage with Slovenia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I am committed to continuing engagement with 
a broad spectrum of civil society in Slovenia, including human rights 
activists and religious groups, and the organizations that represent 
them.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Slovenia?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am a firm believer that diversity makes teams better. I 
see this in my own family, which is both ethnically and culturally 
diverse. I have also seen it in teams that I have worked in both in 
business and in my nonprofit work. In my nonprofit work in 
particularly, I have had the privilege of working with diverse people 
in several countries.
    If confirmed, I would work to engage with my staff, including staff 
that come from diverse backgrounds and underrepresented groups, in a 
number of ways. At the most basic level, I hope to be approachable by 
my entire staff-whether actively working to engage my entire team on a 
personal level or becoming part of the embassy community through having 
my children in the same school as my staff, I want to ensure that all 
members of my team feel comfortable engaging with me. Additionally, if 
confirmed I hope I can mentor and support my team, giving them the 
resources they need to be successful, including ensuring that those 
from diverse backgrounds and underrepresented groups have any 
additional/unique resources or mentoring that might be useful to 
ensuring their success.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. As a mother of children who have been adopted from multiple 
countries and cultures, I am very focused on fostering an environment 
that is diverse and inclusive. If confirmed, I would first intend to 
lead by example-ensuring that my entire team understands well the value 
I place on diversity and inclusion and making it part of our daily work 
life. Additionally, I would intend to engage routinely with my 
supervisors to ensure that they have the resources they need to foster 
an environment that is diverse and inclusive. Whether it is training 
and development, setting or revising policies, supporting efforts for 
new programs and engagement, or simply being present and supportive of 
my supervisors' efforts, if confirmed, I want to make sure that I am 
doing everything I can to foster and maintain a diverse and inclusive 
work environment.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Dereck Hogan by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have had the privilege to promote human rights and 
democracy in numerous countries in transition and while working in 
senior leadership positions in the Department of State. I am 
particularly proud to have designed an intensive capacity building 
program to help the then-newly elected Nicaraguan members of parliament 
develop stronger ties to their constituents, crafted a tougher 
sanctions regime against the Belarusian Government for egregious human 
rights violations and anti-democratic practices, partnered with the 
U.S. Helsinki Commission to shine the international spotlight on the 
mistreatment of Roma populations in Europe, drafted or spearheaded 
numerous critical statements against democratic backsliding in Belarus 
and Azerbaijan, and worked with the Azerbaijani Government to partner 
with the OSCE Office of Democratic Initiatives and Human Rights (ODIHR) 
to send an electoral observation mission to monitor its crucial 
presidential elections. If confirmed as Ambassador to the Republic of 
Moldova, the active promotion of human rights and democracy will remain 
a top priority for me.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Moldova? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The most pressing challenges to democracy or democratic 
development in Moldova include corruption, a weak justice sector, 
restrictions on freedom of the media, weak rule of law, and 
discrimination against persons with disabilities, domestic violence, 
and trafficking in persons.
    In FY 2017, The United States provided over $65.5 million in State/
USAID assistance to combat these challenges. Our assistance supports 
programs that promote democratic reforms and sustainable economic 
growth, strengthen the justice sector, promote media independence and 
literacy, combat corruption and trafficking-in-persons, and improve the 
capabilities of law enforcement and border security, among other 
objectives. In 2017, our assistance helped the International 
Organization for Migration to launch an anti-trafficking in persons 
project with the Moldovan Government to assist vulnerable Moldovans.
    This year in particular, ahead of the parliamentary elections, we 
are supporting initiatives that promote free, fair, and transparent 
elections. If confirmed, I will ensure that our assistance and 
programming continue to focus on resolving these challenges. I will 
also continue to work with our international partners, especially the 
EU, to coordinate our efforts.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Moldova? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, and with Congress's generous support, I will 
continue our assistance efforts which support programs that promote 
democratic reforms and sustainable economic growth, strengthen the 
justice sector, promote media independence and literacy, combat 
corruption and trafficking-in-persons, and improve law enforcement and 
border security, among other objectives. The biggest obstacles to 
democracy in Moldova include corruption, human rights issues, and the 
apparent lack of political will to implement necessary reforms. Moldova 
also faces resource constraints in addressing some of its human rights 
issues. Moldova is the poorest country in Europe. There are increased 
reports of selective justice efforts against the opposition, 
intimidation of journalists and pollsters, as well as increased 
pressure on NGOs, independent media, and civil society. The Supreme 
Court's unusual and non-transparent invalidation of the June mayoral 
elections in Chisinau further increased the perception that Moldova's 
judiciary lacks independence. This year in particular, ahead of the 
parliamentary elections, we plan to support initiatives that promote 
free, fair, and transparent elections. If confirmed, I will ensure that 
our assistance and programming continue to work to resolve these 
challenges. I will also continue to work with our international 
partners, especially the EU, to coordinate our efforts.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will continue to work with the interagency 
team at Embassy Chisinau to ensure our funding continues to support 
democracy and governance programs. Our assistance supports programs 
that promote democratic reforms and sustainable economic growth, 
strengthen the justice sector, promote media independence and literacy, 
combat corruption and trafficking-in-persons, and improve law 
enforcement and border security, among other objectives. A new USAID 
project aims to strengthen local governance and citizen engagement. 
Local public administrations that demonstrate a commitment to open, 
inclusive, and accountable governance will unlock a technical 
assistance package that will allow communities to implement and manage 
needed infrastructure programs. This year in particular, ahead of the 
parliamentary elections, we are supporting initiatives that promote 
free, fair, and transparent elections. I will also continue to 
prioritize programs that contribute to building strong democratic 
institutions, including as a means to develop Moldova's resilience to 
Russian malign influence.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Moldova? What steps will you take to proactively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Civil society, human rights activists, and non-governmental 
organizations play an essential role in encouraging governments to be 
more responsive and accountable. Partnering with civil society is 
critical to advancing the human rights of Moldova's citizens. This 
includes eliminating corruption and ensuring a transparent justice 
sector, fostering economic opportunities for the Moldovan and American 
people, and asserting U.S. positive influence. If confirmed, I will 
continue our assistance programming that supports civic organizations, 
NGOs, and others involved in addressing the variety of human rights 
concerns in Moldova. Meetings with civil society will be a priority on 
my calendar. I will engage directly, at the highest levels, with 
Moldovan Government officials to emphasize our commitment to the proper 
treatment of civil society organizations. I will continue to direct our 
assistance to help Moldovan Government implement legislative changes 
that protect and promote the role of civil society in Moldova.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Representing American interests requires promoting 
America's ideals, values, and priorities. If confirmed, I look forward 
to engaging with democratically-oriented political opposition figures 
and parties in Moldova. If confirmed, I will continue to advocate and 
support the presence of the International Republican Institute and the 
National Democratic Institute in Moldova, both of which are 
organizations that promote genuine political competition and civic 
literacy. I will continue to promote programming that supports women, 
ethnic minorities, and youth civic participation within political 
parties and the Government writ large.

    Question 7. Will you and your embassy team actively engage with 
Moldova on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Moldova?

    Answer. Freedom of the press is paramount for any democracy. 
Freedom House rates Moldovan media as partially free. The Moldovan 
Government continues to develop an Audio Visual Code that is compliant 
with EU standards, as required by Moldova's EU Association Agreement. 
If confirmed, I will meet with the Moldovan Government at the highest 
levels to promote media freedom and ensure that Moldova implements the 
Audio Visual Code. I will engage regularly with independent press in 
Moldova. I will continue to direct assistance toward programs that 
promote independent media, media literacy, and efforts aimed at 
countering Russian propaganda.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country? On corruption and illicit financial activity used by outside 
actors to influence political developments in the country?

    Answer. Russian disinformation in Moldova is pervasive. Embassy 
Chisinau is working with other allied missions to promote a number of 
programs that support independent news broadcasts. This includes 
supporting key independent media outlets in Moldova. Embassy Chisinau 
is also helping to promote the production of local language media 
content to supplant the Russian programing that permeates Moldova's 
airwaves. If confirmed, I will ensure that Embassy Chisinau continues 
to engage with independent media, civil society, and government 
counterparts to promote media freedom while also educating the Moldovan 
public on how to recognize disinformation.
    Corruption, weak rule of law, and a non-transparent justice sector 
only hamper Moldova's economic growth and facilitate its vulnerability 
to illicit financial activities. Moldova's financial sector is still 
recovering from the 2014 embezzlement of over a billion dollars--almost 
15 percent of Moldova's GDP at the time. If confirmed, I will continue 
to engage with Moldovan civil society and NGOs and seek their input on 
how best to address these challenges. I will continue to stress the 
need for increased efforts to ensure that all persons responsible for 
the theft are prosecuted to the fullest extent of the law and that 
efforts are made to optimize the level of money recovered.

    Question 9. Will you and your embassy teams actively engage with 
Moldova on the right of labor groups to organize, including for 
independent trade unions?

    Answer. In Moldova, the law provides workers the right to form and 
join independent unions, bargain collectively, and conduct legal 
strikes. If confirmed, I look forward to continuing Embassy Chisinau's 
active engagement with labor groups and with the Moldovan Government to 
ensure they continue to monitor and enforce these rights.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Moldova, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Moldova? What specifically will you commit to do to help LGBTI 
people in Moldova?

    Answer. In Moldova, the law prohibits employment discrimination 
based on sexual orientation. Societal discrimination based on sexual 
orientation and gender identity is common. LGBTI individuals are often 
victims of discrimination, which has included both verbal and physical 
abuse. In most cases, police officers are reluctant to open cases 
against the perpetrators. This year, however, with Embassy Chisinau's 
support and engagement with the local police, participants completed 
the annual LGBTI Pride march in Chisinau for the first time since the 
event started 17 years ago. If confirmed, Embassy Chisinau will 
continue to support the rights of LGBTI people in Moldova.

    Question 11. How will you seek to boost resilience to Russian 
Government meddling within Moldovan institutions and civil society? 
What types of U.S. assistance do you see as most critical in this 
regard? How will you address Moldovan political actors engaged in 
illicit dealings with Russia or otherwise enabling malign Kremlin 
influence in the country?

    Answer. Moldova is on the frontlines of Russian malign influence, 
and its capacity to withstand these kinds of external threats 
ultimately depends on the strength of Moldovan civil society, access to 
free and unbiased media, government's credible efforts to combat 
corruption at all levels, and the durability of its democratic 
institutions. If confirmed, Embassy Chisinau will continue to support 
concrete steps to reduce Moldova's vulnerability to Russian aggression. 
I will continue to direct assistance to bolster Moldova's cyber 
security capabilities, promote media freedom and literacy, and engage 
with civil society and NGOs to ensure Moldovan citizens' voices are 
heard. I will also continue to work with International Republican 
Institute and National Democratic Institute to promote grassroots 
public engagement and build civic literacy. If confirmed, I will press 
the Government to implement reforms required by Moldova's Association 
Agreement with the EU and other international commitments. Meeting 
these commitments and undertaking these reforms will enable Moldova to 
inoculate itself against Russian interference, a goal that the Moldovan 
Government has publicly stated that it seeks to achieve.

    Question 12. What approach will you take, if confirmed, toward the 
Russian-supported breakaway region of Transnistria and specifically, to 
restore Moldovan control over its sovereign territory and deny space to 
transnational organized crime groups and malign Kremlin-affiliated 
actors in this region?

    Answer. If confirmed, I will continue Embassy Chisinau's active 
support for the 5+2 settlement process to resolve the long-standing 
conflict in Transnistria. The 5+2 format includes Moldovan and 
Transnistrian authorities, with Russia, Ukraine, and the OSCE as 
mediators, and the United States and EU as active observers. The goal 
of the process is a special status for Transnistria within Moldova's 
internationally recognized borders. Over the past year, these 
negotiations have produced real results. While Russia has been a 
constructive participant in these negotiations, it has not lived up to 
its commitment to remove its forces from Moldova, consistent with its 
1999 Istanbul OSCE Summit commitments. The United States continues to 
call for withdrawal of Russia's remaining forces from Moldova, 
consistent with its 1999 Istanbul OSCE Summit commitments. The United 
States also supported Moldova's June 22, 2018 resolution at the United 
Nations, which calls for the complete and unconditional withdrawal of 
the Operational Group of Russian Forces from the territory of the 
Republic of Moldova.
    If confirmed, I will continue to pursue opportunities, through our 
assistance programs and public affairs outreach, to engage the people 
living in the Transnistrian region. We will encourage the people in 
Transnistria to strengthen rule of law, implement international 
commercial best practices, rebuild ties between the people on both 
sides of the Nistru river, and continue to strengthen economic links 
with European markets.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Dereck Hogan by Senator Benjamin L. Cardin

    Question 1. How would you assess the progress of OSCE engagement 
with Moldova, especially regarding the conflict in Transnistria?

    Answer. The United States is an active participant in the OSCE-led 
5+2 settlement process to resolve the conflict in Transnistria. The 
goal of the process is a special status for Transnistria within 
Moldova's internationally recognized borders. Over the past year, these 
negotiations have produced real results that would improve the lives of 
people on both sides of the Nistru river. These included reopening of a 
key bridge, restoring educational opportunities for Moldovan school 
children, recognition of Transnistrian diplomas by Moldovan Government 
officials, return of certain farmlands to Moldovan farmers, and 
agreement on a mechanism to allow Transnistrian vehicles to participate 
in international traffic.
    In addition to our efforts to resolve the conflict in Transnistria, 
Embassy Chisinau works closely with the OSCE mission in Moldova on a 
wide range of issues. These include empowering Moldova's civil society, 
working to help ensure free and fair Parliamentary elections, implement 
good governance measures, and support freedom of religion initiatives. 
If confirmed, I will ensure we continue our successful cooperation.

    Question 2. Do you believe that Russia will interfere in the 
February 2019 parliamentary elections in Moldova?

    Answer. I believe Moldova is vulnerable to potential Russian 
interference in its upcoming parliamentary elections. In the past, 
Russia has demonstrated its willingness and capability to interfere in 
several European elections, and Moldova is on the frontlines of Russian 
malign influence.

    Question 3. If so, what form will it take in light of Moldova's 
January ``media propaganda'' law targeting broadcasts of Russian 
origin?

    Answer. Moldova's Audio VisualCode prohibits rebroadcast of certain 
Russian-originated media in Moldova, including political and military 
shows. In the past, Russia has sought to employ a wide range of 
influence tools in European countries, including campaign financing, 
malicious cyber activity, social media manipulation, media propaganda, 
and other means.

    Question 4. Should the United States support Moldova in combatting 
Russian influence? If so, how?

    Answer. Yes, the United States should support Moldova in combatting 
Russian influence. Russian efforts to undermine democratic processes 
and the sovereignty of European countries are unacceptable and require 
a whole-of-government response in concert with our allies and partners. 
It is in the interest of the United States for Moldova to be more 
stable, prosperous, and democratic, which in turn affects the stability 
and prosperity of the entire region. The Moldovan Government's stated 
aspiration is for Moldova to be anchored to the West.
    The best way to help Moldova resist Russian interference is to 
strengthen the country's democratic institutions and civil society. If 
confirmed, I will continue to direct assistance that supports 
independent media and media literacy, modernizes and increases the 
capacity of Moldova's law enforcement and criminal justice 
institutions, improves Moldova's defense capabilities, including 
against cyber attacks, and increases Moldova's energy security by 
promoting interregional connectivity in the natural gas and electricity 
sectors to reduce reliance on Russian resources.
    The United States works to strengthen Moldova's economy by 
undertaking programming that improves the business environmentand opens 
up trade opportunities with the West. Such assistance fosters 
investment opportunities for American businesses and counters Russian 
malign influence by reducing Russia's economic leverage over Moldova.
    The United States is also an active observer in the 5+2 
Transnistria settlement process, which seeks an agreement on a special 
status for Transnistria within Moldova's internationally-recognized 
borders. The United States also supported Moldova's June 22, 2018 
resolution at the United Nations, which calls for the complete and 
unconditional withdrawal of the Operational Group of Russian Forces 
from the territory of the Republic of Moldova.

    Question 5. What effect will restricting Russian-language 
broadcasts have on ethnic minorities in the country, many of whom must 
use Russian as a lingua franca?

    Answer. All major Russian television stations are rebroadcast in 
Moldova. In January, Moldova passed a controversial amendment that 
prohibits rebroadcast of certain Russian-originated media in Moldova, 
including political and military shows. The United States supports 
media freedom and has worked with the Moldovan Government, civil 
society, and independent journalists to develop the nascent independent 
media and original content in Moldova, while at the same time building 
resiliency against Russian propaganda. The United States also continues 
to support Moldova's efforts to implement an Audio Visual Code law 
compliant with EU norms as per its Association Agreement with the EU. 
If confirmed, I will continue to support these engagements.

    Question 6. How can Moldova better protect its ethnic minority 
populations, including Roma, and is it steadily progressing toward the 
goal of further integration?

    Answer. As national governments and EU bodies have remarked, bias 
against ethnic minority populations, including anti-Roma bias, remains 
a disturbing fixture of many societies in the region, and Moldova is no 
exception. Roma, in particular, lag behind in nearly all social 
indicators and often face intense prejudice in the school systems, the 
workplace, and elsewhere. The Government of Moldova has taken positive 
steps to address the plight of the Roma community. In 2016, the 
Government signed the Action Plan for Supporting the Roma Ethnic 
Population and continues to collaborate today with a vibrant and active 
Roma community to create solutions to improve access to resources and 
education.
    The United States plays an active role in helping foster tolerance 
in Moldova. The Embassy monitors and reports on anti-Roma sentiment, as 
well as sponsors public events, outreach to concerned civil society 
groups, and educational opportunities and internships for Roma youth. 
If confirmed, I will continue this work and urge the Government to 
achieve the goals they have laid out. I will also continue to engage 
with other international partners, including the OSCE, to address these 
concerns.

    Question 7. What are Moldova's prospects for overcoming systemic 
problems, especially with regard to the rule of law and corruption? 
What obstacles does it face, and how might they be confronted?

    Answer. In signing an Association Agreement and a Deep and 
Comprehensive Free Trade Agreement with the European Union in 2014, 
Moldova boldly chose a Euro-Atlantic path. The Moldovan Government's 
stated aspiration is for Moldova that is anchored to the West. With 
donor aid, including considerable assistance from the United States, 
Moldova has taken concrete steps to improve its financial and banking 
sectors and strengthen some of its key institutions, such as the police 
and customs and tax collection agencies. The biggest obstacle Moldova 
faces with regard to the rule of law and corruption is the apparent 
lack of political will to implement reforms that would strengthen 
Moldova's justice sector, improve rule of law, and eliminate 
corruption. If confirmed, I will ensure that our assistance and 
programming continue to focus on resolving these challenges. I will 
also engage with civil society and NGOs to empower Moldova's citizens 
to hold their elected officials accountable. I will also continue to 
work with our international partners, especially the EU, to coordinate 
our efforts?
    Question 8. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have had the privilege to promote human rights and 
democracy in numerous countries in transition and while working in 
senior leadership positions in the Department of State. I am 
particularly proud to have designed an intensive capacity building 
program to help the then newly elected Nicaraguan members of parliament 
develop stronger ties to their constituents, crafted a tougher 
sanctions regime against the Belarusian Government for egregious human 
rights violations and anti-democratic practices, partnered with the 
U.S. Helsinki Commission to shine the international spotlight on the 
mistreatment of Roma populations in Europe, drafted or spearheaded 
numerous critical statements against democratic backsliding in Belarus 
and Azerbaijan, and worked with the Azerbaijani Government to partner 
with the OSCE Office of Democratic Initiatives and Human Rights (ODIHR) 
to send an electoral observation mission to monitor its crucial 
presidential elections. If confirmed as Ambassador to the Republic of 
Moldova, the active promotion of human rights and democracy will remain 
a top priority for me.

    Question 9. What are the most pressing human rights issues in 
Moldova? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Moldova? What do 
you hope to accomplish through these actions?

    Answer. The most significant human rights issues include 
corruption, a weak justice sector, and restrictions on media freedom 
(especially in Transnistria), violence and discrimination against 
persons with disabilities, domestic violence, and trafficking in 
persons. In FY 2017, The United States provided over $65.5 million in 
State/USAID assistance to combat these challenges. Our assistance 
supports programs that promote democratic reforms and sustainable 
economic growth, strengthen the justice sector, promote media 
independence and literacy, combat corruption and trafficking-in-
persons, and improve the capabilities of law enforcement and border 
security, among other objectives. This year in particular, ahead of the 
Parliamentary elections, we are supporting initiatives that promote 
free, fair, and transparent elections. If confirmed, I will ensure that 
our assistance and programming continue to promote democracy and human 
rights. I will also continue to work with our international partners, 
especially the EU, to coordinate our efforts.

    Question 10. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Moldova in 
advancing human rights, civil society and democracy in general?

    Answer. The biggest obstacle Moldova faces in improving the human 
rights is corruption and non-transparent justice. There are reports of 
increased selective justice efforts against the opposition, 
intimidation of journalists and pollsters, as well as increased 
pressure on NGOs, independent media, and civil society. The non-
transparent and highly criticized judicial nullification of the 
Chisinau mayoral elections by Chisinau's Supreme Court on June 25 
further decreased the public's faith in the justice sector and 
government more broadly. Another key obstacle Moldova faces in 
addressing some of the human rights issues is lack of funds. Moldova is 
the poorest country in Europe. Moldova must allocate the necessary 
budget to hire, train, and equip personnel to deal with the variety of 
human rights issues. Only then can capacity building programs supported 
by the donors provide maximum benefits.

    Question 11. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Moldova? If confirmed, what steps will you 
take to proactively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to meeting with human rights, civil 
society and other NGOs in the U.S. and with local human rights NGOs in 
Moldova. Civil society, human rights activists, and non-governmental 
organizations play an essential role in encouraging governments to be 
more responsive and accountable. Partnering with civil society is 
critical to advancing the human rights of Moldova's citizens. This 
includes eliminating corruption and ensuring a transparent justice 
sector, fostering economic opportunities for the Moldovan and American 
people, and asserting U.S. positive influence. If confirmed, I will 
continue our assistance programming that supports civic organizations, 
NGOs, and others involved in addressing the variety of human rights 
concerns in Moldova. I will meet regularly with such groups to ensure 
their voices are being heard by the United States and incorporated into 
our policy decisions. If confirmed, I will make sure Embassy Chisinau 
continues to uphold the Leahy Law and all other similar provisions to 
ensure that U.S. security assistance and cooperation activities 
reinforce human rights.

    Question 12. Will you and your embassy team actively engage with 
Moldova to address cases of key political prisoners or persons 
otherwise unjustly targeted by Moldova?

    Answer. There are currently no political prisoners in Moldova, and, 
if confirmed, I will continue to promote Embassy Chisinau's active 
engagement with the Government of Moldova to address the international 
community's growing concerns about reports of selective justice in the 
country.

    Question 13. Will you engage with Moldova on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will continue Embassy Chisinau's history of 
engagement with the Moldovan Government to address human rights, civil 
rights, and governance concerns. I will emphasize that the Moldovan 
Government must continue to improve democratic accountability, increase 
media freedom, reform its justice sector, and enhance its respect for 
and protection of civil society. I will continue to direct our 
assistance to programming that supports those objectives and the 
further development of Moldovan civil society. If confirmed, I will 
continue Embassy Chisinau's work with other international donors to 
coordinate and amplify our efforts.

    Question 14. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 15. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 16. Do you or do any members of your immediate family have 
any financial interests in the Republic of Moldova?

    Answer. Neither members of my immediate family nor I have any 
financial interests in the Republic of Moldova.

    Question 17. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that is diverse and 
        inclusive?

    Answer. I strongly believe in the power of--and have consistently 
promoted--a diverse workforce. I was one of the original recipients of 
the Thomas Pickering Fellowship, a competitive program that selects and 
prepares university and graduate students from diverse backgrounds and 
underrepresented groups for a successful career in the Foreign Service. 
I actively support Department's commitment to diversity. If confirmed, 
I would take the following actions, among many others, to promote 
greater diversity in Embassy Chisinau: reach out to the leadership of 
the Department's numerous affinity groups to encourage their members to 
consider Embassy Chisinau, organize recruitment teleconferences, direct 
my Deputy Chief of Mission and the section heads to rank diversity as a 
top consideration in the selection of Embassy personnel, partner with 
the Pickering and Charles B. Rangel Fellowships to host Fellows at 
Embassy Chisinau for their summer internships and mentoring, and 
organize brown bag sessions for supervisors and staff at the Embassy on 
the power of a diverse workforce.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Philip Kosnett by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have served several tours in which my duties focused on 
conflict resolution, post-conflict reconciliation, and promotion of 
human rights. In Iraq in 2004, I served as the Coalition Provisional 
Authority administrator for the province of Najaf during the event 
known as the ``Shi'ite Rebellion'' led by the cleric Moqtada Sadr. A 
firm whole-of-government response combining diplomatic, development, 
and military tools led to the restoration of legitimate Iraqi Governing 
Council authority over Najaf and Southern Iraq and led rebel leaders to 
abandon the rebellion and enter Iraq's political process.
    As Deputy Chief of Mission in Uzbekistan 2011-2014, I coordinated 
interagency efforts that successfully encouraged a sharp reduction in 
the use of child labor in Uzbekistan's cotton harvest and set the stage 
for evolving improvements in Uzbekistan's judicial system. As Deputy 
Chief of Mission and subsequently Charge d'Affaires in Turkey 2016-
2018, I spearheaded efforts to ensure due process for unjustly detained 
American citizens and local Embassy staff, resulting in the release of 
some of our people and a sustained whole-of-government campaign--still 
underway--to ensure justice for all our people. This highlighted for 
the people of Turkey the American commitment to justice and rule of 
law.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Kosovo? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Failure to ensure accountability and uphold the rule of law 
stand in the way of Kosovo's full democratization. Powerful figures are 
rarely held to account for corruption, human rights abuses, or other 
major offenses. This erodes public trust in government, entrenches 
damaging patronage networks, denies justice to victims, prevents full 
implementation of minority protections, and hampers economic growth. 
Reforming Kosovo's judiciary, which faces a significant backlog of 
cases and often dismisses human rights-related cases on procedural 
grounds, is a priority challenge.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Kosovo? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Bolstering the rule of law is a Mission priority, 
implemented through both political advocacy and programming. If 
confirmed, I will press the Government of Kosovo at the highest level 
to end impunity, and I will make clear that our ability to advocate 
successfully for Kosovo's international recognition depends on the 
Government's willingness and ability to progress in this area. I will 
utilize our assistance programming to bolster rule of law and 
strengthen government institutions to fight impunity and corruption. I 
will also direct assistance programming to support youth and civil 
society, enabling Kosovo citizens to hold the Government to account and 
laying the foundation for responsible governance. Finally, I will 
explore opportunities to support transitional justice efforts as a 
means of dealing with the past and aiding societal reconciliation.
    Kosovo faces many impediments to ending impunity, including 
entrenched patronage networks and weak judicial institutions. I will 
make it a priority to challenge political impediments to progress and 
support institutional advancement.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will utilize assistance from the State 
Department, USAID, and other agencies at post to fight corruption and 
end impunity by strengthening weak institutions and giving voice to 
civil society. I will continue to prioritize rule of law, using our 
resources to strengthen transparency and accountability in Kosovo's 
justice system and improve parliamentary oversight. In particular, our 
continued work to support civil society and media monitoring of 
procurement and public expenditures will help strengthen transparency 
in the central and municipal governments. I will work to safeguard 
Kosovo from malign external pressure by supporting independent media, 
building civil society capacity, and improving energy security.
    The Democracy Commission Small Grants program continues to be a 
vital tool in empowering smaller, community-based organizations. If 
resources are available, I intend to use this tool to support those 
organizations that advocate for the rights of Kosovo's minorities and 
other marginalized groups, and to raise the profile of these issues at 
the national level.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Kosovo? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I plan to continue the Embassy's practice of 
meeting with these groups--from all communities--on a regular basis and 
empowering their voices in policy debates. Despite my stated concerns 
about rule of law, impunity, and judicial backlogs, in general, Kosovo 
is a permissive environment for civil society, with strong legal and 
regulatory protections. I will engage the Government to remain 
accountable for those protections and challenge any measures that may 
undermine them.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with parties across the political 
spectrum. With the exception of the four northern municipalities, 
political competition in Kosovo is unrestricted, and Kosovo's recent 
elections have been free and credible. U.S. assistance programs will 
continue supporting improvements to Kosovo's electoral systems and 
political party development, including inclusivity for women, 
minorities, and youth.

    Question 7. Will you and your embassy team actively engage with 
Kosovo on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Kosovo?

    Answer. If confirmed, I will continue the current practice of 
advocating for freedom of expression, including freedom of the press, 
and pushing back on legislative efforts to limit press freedom. Kosovo 
has strong legislative protections for media in place. I will advocate 
for the protection and full implementation of this legislation.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country? On corruption and illicit financial activity used by outside 
actors to influence political developments in the country?

    Answer. If confirmed, I will continue the Embassy's practice of 
building the capacity of local media and NGOs to counter disinformation 
and malign external pressure. I will partner with and amplify the 
voices of civil society organizations working to counter corruption and 
illicit financial activity.

    Question 9. Will you and your embassy teams actively engage with 
Kosovo on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Kosovo law protects the right of labor groups to organize. 
If confirmed, I will advocate as necessary for its full implementation.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Kosovo, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Kosovo? What specifically will you commit to do to help LGBTQ people 
in Kosovo?

    Answer. Kosovo law protects marginalized communities against hate 
crimes, largely thanks to U.S. and other international advocacy. 
Lesbian, gay, bisexual, transgender and intersex (LGBTI) people, like 
all marginalized communities in Kosovo, face discrimination and 
occasional abuse despite strong legislation. A critical Embassy role is 
to use its credibility to induce attitude shifts toward LGBTI people 
over time by publicizing our engagement with this community and 
messaging on social media. If confirmed, I will press Kosovo to adopt 
and implement revisions to the Criminal Code and Criminal Procedure 
Code--currently before the Assembly--which further enhance protections 
for LGBTI and other marginalized groups.
``Border Adjustment'' Proposals
    Question 11. You said in your confirmation hearing that the 
position stated by Trump administration officials to consider 
agreements that Serbia and Kosovo may reach does not constitute a 
``code word'' for endorsing the border adjustment/land swap proposals 
the two sides are currently touting. But U.S. silence on the border 
adjustment idea could be perceived by the parties as consent, since 
U.S. Government officials over successive administrations have 
repeatedly stated our opposition to any shifting of borders or 
territory in the Balkans, including with respect to Serbia and Kosovo. 
Such shifting could destabilize the region and play into the hands of 
the Kremlin, which aims to keep Western Balkan countries out of Euro-
Atlantic institutions. It also breaks unity with some of our major EU 
allies, who have continued to reiterate the inviolability of borders in 
the region.

   Does the Trump administration maintain that borders in Europe are 
        inviolable and should not be altered?
   What is your view on the current Serbia-Kosovo border adjustment 
        proposal, and what risks do you see in it? Does the proposal 
        increase the chance that players elsewhere in the region will 
        attempt to redraw borders in their favor, and that Moscow will 
        use such border adjustments as a way to destabilize Europe? If 
        not, why?
   What do you see as the best way forward to address the dispute 
        between Serbia and Kosovo? How will you encourage compromises 
        by the two sides to reach a deal that meets parameters 
        acceptable to the international community and does not increase 
        the risk of instability elsewhere in the Western Balkans?

    Answer. The United States strongly supports the EU-facilitated 
Dialogue, with the goal of full normalization of relations between 
Kosovo and Serbia. Normalization is essential for regional stability 
and would open a clear path for both countries' further integration 
into the Western community of nations. Now is the time for the parties 
to be creative and flexible. The United States is ready to listen and 
help support the parties in finding a mutually agreed solution.
    The substance of any agreement on normalization must come from the 
parties themselves. Kosovo and Serbia should reach an agreement that is 
implementable, durable, and does not create instability in either 
country or the region. This will require vision and flexibility on both 
sides, as well as both parties working together constructively and 
reducing negative rhetoric. The parties have yet to put forward a 
proposal that meets these conditions, and it would be premature to 
presume what agreement the parties may reach that has mutual consent. 
When they do, the United States will take a serious look at the 
solutions that emerge and if we have concerns will make them clear to 
the parties.
EU Accession
    Question 12. Does the administration support EU accession for 
Kosovo? If confirmed, how will you support democratic and rule of law 
reforms in Kosovo that are necessary to make progress toward the 2025 
EU enlargement goals?

    Answer. The United States continues to support Kosovo's full 
international integration, including by adopting the reforms necessary 
to move toward EU membership. The United States will contribute to 
Kosovo's eventual success by continuing to help Kosovo intensify its 
fight against corruption, improve the rule of law, strengthen 
democratic institutions and civil society, foster economic growth, and 
improve security. Throughout its first ten years of independence, 
Kosovo focused on building and developing sovereign, democratic 
institutions. Kosovo must now work to fight impunity and increase the 
integrity of its institutions to better deliver democratic services to 
all Kosovo citizens.
    Kosovo continues to implement the 2014 EU Stabilization and 
Association Agreement (SAA). The SAA obligates Kosovo to align its 
legislation with EU standards. Compliance with the SAA will enhance 
bilateral EU-Kosovo trade, and further ongoing political dialogue 
between EU and Kosovo institutions. Additionally, Kosovo has made great 
strides in fulfilling all prerequisites for the EU to extend visa free 
travel to Kosovo citizens. Kosovo must continue fighting organized 
crime and corruption, but the United States encourages the EU and 
member states to extend visa liberalization to the last Western Balkan 
aspirant country that does not enjoy this status. If confirmed, I will 
work to advance ties and deepen the relationship between Kosovo and the 
EU.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Philip S. Kosnett by Senator Benjamin L. Cardin

Serbia
    Question 1. There are reports that Serbian officials are suggesting 
a change of borders with Kosovo or a possible territorial swap in 
exchange for recognition by Belgrade and a full normalization of 
relations.

   What is the U.S. response to such a proposal?
   Is the United States encouraging Pristina to agree to include this 
        proposal in negotiations, urging Pristina to reject such an 
        idea, or something in between?
   Are concerns about the precedent this might set elsewhere justified 
        and being considered in developing a U.S. response?

    Answer. The United States strongly supports the EU-facilitated 
Dialogue, with the goal of full normalization of relations between 
Kosovo and Serbia. Normalization is essential for regional stability 
and would open a clear path for both countries further integration into 
the Western community of nations. Now is the time for the parties to be 
creative and flexible. The United States is ready to listen and help 
support the parties in finding a mutually agreed solution.
    The substance of any agreement on normalization must come from the 
parties themselves. Kosovo and Serbia should reach an agreement that is 
implementable, durable, and does not create instability in either 
country or the region. This will require vision and flexibility on both 
sides, as well as both parties working together constructively and 
reducing negative rhetoric. The parties have yet to put forward a 
proposal that meets these conditions, and presuming what agreement the 
parties may reach that has mutual consent would be premature. When they 
do, the United States will take a serious look at the solutions that 
emerge from these negotiations and if we have concerns will make them 
clear to the parties.
Post-Conflict Justice
    Question 2. Ever since the conflicts of the 1990s, the provision of 
justice for crimes committed during those conflicts has been critically 
important, regardless of the perpetrator and regardless of the victim.

   What are your views regarding the special chamber that has been 
        created in Kosovo's judicial system but based in The Hague to 
        prosecute crimes committed during the period of conflict in the 
        late 1990s?
   Does the United States still support that chamber, and what will 
        you do to encourage Kosovo officials to cooperate with it, 
        including by respecting any indictments it issues?

    Answer. The United States remains committed to the institution of 
the Specialist Chambers, which will hear indictments focused on 
allegations of serious crimes and abuses committed in Kosovo from 1998-
2000. If confirmed, I will support the Specialist Chambers and 
Specialist Prosecutors Office to ensure justice for victims, including 
by continuing to support an American in the position of the Chief 
Prosecutor with foreign assistance resources. The United States looks 
forward to the arrival of a new Specialist Prosecutor, the third U.S. 
official to serve in this role.
    It is essential that Kosovo continue to make the maximum effort to 
cooperate with the Specialist Chambers, in line with its international 
commitments, or it risks reversing the progress it has made since 
independence. Kosovo officials' continued cooperation with the Special 
Court is a bellwether of Kosovo's ability to uphold its international 
agreements and our shared values. If confirmed, I will urge Kosovo's 
leaders to uphold their commitment to support the Specialist Chambers. 
I will also urge leaders to respect indictments and to refrain from 
incendiary language that could undermine local support for the court.
Minority Populations in Kosovo
    Question 3. How would you assess the treatment of minorities in 
Kosovo today, not only Serbs but also Roma, Turks, Bosniaks and all 
others?

   How do you intend to engage the Serbian and other minority 
        communities in Kosovo?
   What do you believe can be done to encourage their effective 
        integration in the political, economic and social life of the 
        country, and what barriers exist to their ability to do so?

    Answer. Kosovo's legal framework for minority protections is 
strong, but implementation regularly falls short. Officials who refuse 
to implement unpopular minority protections often do so with impunity. 
The 2017 integration of the judiciary in the four northern Serb-
majority municipalities improved access to justice for Kosovo Serbs, 
and a May 2018 decision to allow civil registration using Serbia-issued 
documents will improve the daily lives of Kosovo Serbs if properly 
implemented. However, Kosovo Serbs remain subject to discrimination, 
harassment, and occasional violence, including by security forces. Non-
Serb minorities are subject to discrimination in education and 
government employment despite legally binding quotas for both. 
Minorities are represented in parliament through protected seats, but 
non-Serb minority communities around the country lack access to 
services despite this representation.
    If confirmed, I will engage regularly with representatives from all 
of Kosovo's minority communities, and will advocate with the Government 
for the protection and promotion of minority rights in Kosovo. U.S. 
assistance programs will continue to focus on increasing constructive 
inter-ethnic cooperation, empowering all citizens to participate 
actively in government, ensuring equal access to services, and 
improving economic opportunities for minority citizens.
Energy
    Question 4. In your testimony before the committee, you mentioned 
supporting Kosovo's comprehensive energy security strategy, which 
includes energy diversification and support from the Millennium 
Challenge Corporation?

   What additional steps can the U.S. take to encourage foreign 
        investment and diversification in Kosovo's energy supply?
   Are you aware of how much of Kosovo's current energy comes from 
        Russia?
   Do you envision energy politics becoming a more divisive issue in 
        Kosovo?

    Answer. Energy security is essential for Kosovo's future economic 
growth and overall stability. We support Kosovo's efforts to create a 
stable base load using modern technologies to increase efficiency, 
improve reliability of supply, and decrease pollution. The stable base 
load power provided by the Kosova e Re power plant (KRPP) will foster 
greater economic growth and investment, while helping to facilitate the 
introduction of renewable sources, thereby helping diversify Kosovo's 
energy supply. The Government of Kosovo is also encouraging 
diversification by providing generous subsidies for electricity from 
renewable sources. While some Kosovo opposition parties and NGOs oppose 
the KRPP project, the Government of Kosovo and the administration stand 
firmly behind this $1.4 billion dollar investment by a U.S. company in 
Kosovo's future.
    Kosovo has limited exposure to Russian energy imports. Almost 100 
percent of Kosovo's electricity comes from two domestic power plants, 
known as Kosovo A and Kosovo B. Kosovo does not have a functional gas 
distribution system so does not have access to natural gas.

    Question 4. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have served several tours in which my duties focused on 
conflict resolution, post-conflict reconciliation, and promotion of 
human rights. In Iraq in 2004, I served as the Coalition Provisional 
Authority administrator for the province of Najaf during the event 
known as the ``Shi'ite Rebellion'' led by the cleric Moqtada Sadr. A 
firm whole-of-government response combining diplomatic, development, 
and military tools led to the restoration of legitimate Iraqi Governing 
Council authority over Najaf and Southern Iraq and led rebel leaders to 
abandon the rebellion and enter Iraq's political process.
    As Deputy Chief of Mission in Uzbekistan 2011-2014, I coordinated 
interagency efforts that successfully encouraged a sharp reduction in 
the use of child labor in Uzbekistan's cotton harvest and set the stage 
for evolving improvements in Uzbekistan's judicial system. As Deputy 
Chief of Mission and subsequently Charge d'Affaires in Turkey 2016-
2018, I spearheaded efforts to ensure due process for unjustly detained 
American citizens and local Embassy staff, resulting in the release of 
some of our people and a sustained whole-of-government campaign--still 
underway--to ensure justice for all our people. This highlighted for 
the people of Turkey the American commitment to justice and rule of 
law.

    Question 5. What are the most pressing human rights issues in 
Kosovo? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Kosovo? What do you 
hope to accomplish through these actions?

    Answer. The 2017 Kosovo Human Rights Report noted endemic 
government corruption; lack of judicial independence, including 
failures of due process and selective implementation of decisions; 
assaults on journalists; and violence against minorities as problems. 
Rule of law lies at the core of all these challenges; powerful figures 
are rarely held to account for human rights abuses or other major 
offenses. Impunity denies justice to victims and prevents full 
implementation of minority protections.
    If confirmed, I will press the Government of Kosovo at the highest 
level to end impunity, and I will make clear that our ability to 
advocate successfully for Kosovo's international recognition depends on 
the Government's willingness and ability to progress in this area. I 
will continue to utilize our assistance programming at post to advance 
inclusion of minorities, women, and youth, and to improve judicial 
accountability. I will also continue to use our assistance to 
strengthen parliamentary bodies to fight impunity. In addition, I will 
continue the current practice of advocating for freedom of expression, 
including freedom of the press, and pushing back on legislative efforts 
to limit press freedom. Finally, I will explore opportunities to 
support transitional justice efforts as a means of dealing with the 
past and aiding societal reconciliation.

    Question 6. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kosovo in advancing 
human rights, civil society and democracy in general?

    Answer. Kosovo faces many impediments to ending impunity, including 
entrenched patronage networks and weak judicial institutions. If 
confirmed, I will make it a priority to challenge political impediments 
to institutional advancement, and will empower and support civil 
society voices seeking to hold politicians to account.

    Question 7. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kosovo? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I plan to continue the Embassy's practice of 
meeting civil society groups--from all communities--on a regular basis 
and empowering their voices in policy debates. Our implementation of 
the Leahy Law and other vetting programs is robust, drawing on diverse 
information regarding war crimes and other gross violations of human 
rights during Kosovo's war. I will continue existing Embassy programing 
aimed at professionalizing the Kosovo Security Force and strengthening 
the relationship between the Kosovo Security Force and the communities 
it serves, to include areas of predominately ethnic minorities.

    Question 8. Will you and your embassy team actively engage with 
Kosovo to address cases of key political prisoners or persons otherwise 
unjustly targeted by Kosovo?

    Answer. According to the State Department's 2017 Country Report on 
Human Rights Practices, there were no reports of political prisoners or 
detainees in Kosovo.With the exception of the four northern 
municipalities, political competition in Kosovo is unrestricted, and 
Kosovo's recent elections have been free and credible. If confirmed, I 
plan to continue the Embassy's practice of meeting with representatives 
across the political spectrum, including voices seeking to hold the 
Government to account for corruption, impunity, or other challenges to 
human rights.

    Question 9. Will you engage with Kosovo on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Bolstering the rule of law--the key to improving human 
rights and securing fully democratic governance--is a Mission priority. 
If confirmed, I will continue to press for progress through both 
political advocacy and programming.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in Kosovo?

    Answer. No.

    Question 13. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my career I have emphasized the importance of 
hiring, and providing promotion and assignment opportunities, to 
colleagues of diverse backgrounds. I have sought to ensure all 
personnel under my authority understand both the laws and regulations 
governing respect for workplace diversity and the moral and ethical 
imperatives behind the law. As a supervisor, I have been personally 
involved in promoting workplace diversity through training and other 
professional development activities and, if confirmed as Ambassador, 
pledge to lead by example. I would also work to ensure that all members 
of the community--employees and family members, Americans and locally 
employed staff--feel respected and included, including by continuing my 
past practice of establishing a formal open door policy for all members 
of the community to raise concerns and suggestions directly with me.

    Question 14. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would highlight for all members of the 
Embassy community the importance of hiring and providing professional 
development opportunities for all, including representatives of all 
Kosovo's communities and Americans of all backgrounds. In accordance 
with State Department practice, I will make respect for Equal 
Employment Opportunity principles as well as providing access to 
professional development opportunities to colleagues of diverse 
backgrounds a formal performance goal for Embassy supervisors. I will 
ensure that the Embassy EEO Counseling program is fully staffed and 
that we maintain energetic outreach to all employees on the importance 
of respect for diversity and the remedies available to employees who 
believe they have been treated unfairly.
Corruption
    Question 15. How does political corruption impact democratic 
governance and the rule of law?

   What is your assessment of corruption trends in Kosovo and efforts 
        to address and reduce them by the Government of Kosovo?
   If confirmed, what steps will you take to strengthen good 
        governance and anticorruption programming in Kosovo?

    Answer. Corruption remains widespread throughout Kosovo, hampering 
its democratic and economic development. Not only does corruption limit 
the willingness of investors to commit funding to the country, it also 
weakens public confidence in Kosovo's institutions. With U.S. 
assistance, the Government is making efforts to improve transparency 
and institutional capacity to root out corruption. However, entrenched 
patronage networks remain a critical problem.
    If confirmed, I will advocate for increased commitment to 
addressing corruption at all levels of government. U.S. assistance will 
continue to provide technical assistance to support transparent 
procurement and hiring, and will continue to develop civil society and 
an independent media, which are vital to hold officials accountable. 
Our assistance will continue to promote judicial integrity, reducing 
opportunities for corruption and enabling Kosovo institutions to hold 
high-level officials to account.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Judy Rising Reinke by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As a Foreign Commercial Officer overseas, I have been 
responsible for helping U.S. firms do business in challenging markets 
in a manner consistent with human rights principles. One example was my 
role in an informal working group focused on the extractive industry in 
the Philippines. This group, composed of representatives of U.S., 
Australian, and Canadian businesses and embassies, met regularly to 
share information and creatively address challenging issues in the 
mining sector. Together we initiated efforts to promote adoption of the 
Extractive Industries Transparency Initiative (EITI) in the Philippines 
to enhance governance of natural resource extraction, to establish a 
more credible fiscal regime, create audits for environmental 
compliance, and, ultimately, protect local peoples from exploitation, 
such as the displacement of indigenous peoples. This effort continued 
after my departure from Manila, and ultimately resulted in the decision 
by the Government of the Philippines to join the EITI in 2013.
    While serving as the Deputy Director General, I ensured that all 
Officers of the Foreign Commercial Service understood and promoted the 
principles of Human Rights in their daily work. During my tenure, my 
training and development team developed and launched a mandatory, on-
line Human Rights training module. The training addresses rule of law, 
the Foreign Corrupt Practices Act, and the principles of Human Rights, 
including the concepts of corporate social responsibility. FCS Officers 
are trained to support human rights in the field by advising U.S. firms 
of the impact of their activities in a given country; ensuring that 
U.S. firms carry out due diligence on business partners; and helping 
U.S. firms make sound decisions to avoid and report host country 
practices that perpetrate human rights abuses.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Montenegro? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. While Montenegro has made great strides in advancing 
respect for human rights in the last decade, much work remains. As the 
State Department has documented in its the annual 2017 Human Rights 
Report, pervasive corruption--marked by nepotism, political favoritism, 
weak controls, and conflicts of interest in all branches of the 
Government, including in law enforcement agencies--contributes to 
serious human rights problems. This is a priority for our policy 
engagement.
    A second major serious problem is societal discrimination and 
violence against minorities, including the lesbian, gay, bisexual, 
transgender, and intersex (LGBTI) community, and the Romani, Ashkali, 
and Balkan Egyptian ethnic minorities, which has the effect of 
stigmatizing these populations.
    A third serious major problem is the chilling effect created by 
attacks and harassment of journalists, as well as the failure to 
resolve several past cases of violence and threats against journalists 
and government critics.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Montenegro? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. I would, if confirmed:

  <diamond> support efforts to make Montenegro's law enforcement 
        institutions more professional and competent;
  <diamond> support the work of the independent human rights ombudsman 
        in Montenegro; and
  <diamond> continue to U.S. support for civil society and independent 
        media, which serve as important watchdogs over the Government, 
        including the police and justice system.

    In this regard, I would strongly support ongoing civil society 
programs, that support NGOs involved in raising public participation 
in, and awareness of, on-going reform efforts necessary for greater 
Euro-Atlantic integration.
    I would ensure that the Embassy continues advocacy on these issues 
in public and in private, which has proved effective in drawing 
attention to the deficiencies and encouraging better compliance with 
international norms.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Assuming the availability of resources, I will continue to 
use the Democracy Commission Small Grants program and other mechanisms 
to empower community-based organizations to fight corruption, 
strengthen the rule of law, build support for Montenegro's continued 
Euro-Atlantic integration, and counter violent extremism. I will also 
support ongoing programs to strengthen justice sector institutions and 
increase judicial independence. Additionally, if confirmed, I will 
continue to prioritize assistance supporting media freedom, media 
professionalization, and media literacy, with a focus on giving 
Montenegrins the tools needed to identify and counter disinformation.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Montenegro? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Civil society plays an indispensable role in preserving 
fundamental human rights, rule of law, and transparency. If confirmed, 
I am committed to meeting with human rights NGOs, other members of 
civil society in Montenegro, and other NGOs, both domestic and abroad, 
in support of promoting and securing democratic values in Montenegro. I 
will make sure that our Embassy continues to abide by the Leahy Law and 
actively assesses the bona fides of any and all would-be recipients of 
U.S. security assistance and participants in security cooperation 
activities to reinforce our commitment to human rights.
    Furthermore, if confirmed, as Ambassador, I will be a vocal 
defender of civil society, and strongly oppose any local efforts to 
restrict or penalize civil society or NGOs via legal or regulatory 
measures, including through direct bilateral engagement and public 
diplomacy efforts.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I am committed to supporting democratic 
values in Montenegro, including meeting with democratically oriented 
political opposition parties and figures. I will actively promote 
inclusion of women, minorities, and youth within political parties and 
strongly advocate for minority rights.

    Question 7. Will you and your embassy team actively engage with 
Montenegro on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Montenegro?

    Answer. Yes. Freedom of expression, including of the press, is a 
cornerstone of democracy, and I pledge to advocate for media freedom in 
Montenegro. As part of this effort, I commit to meet regularly with 
Montenegro's independent media outlets.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. My team and I will support efforts by Montenegro's 
Government and civil society to counter disinformation and propaganda. 
In addition to our public outreach, we will team with partners to 
identify and push back on disinformation designed to undermine the 
U.S.-Montenegrin partnership. We will also work to improve the ability 
of Montenegrin citizens to critically analyze news content and detect 
false and misleading information.

    Question 9. Will you and your embassy teams actively engage with 
Montenegro on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Montenegrin law provides for the rights of labor groups to 
organize, including independent trade unions. However, leaders of the 
Union of Free Trade Unions of Montenegro have claimed that the 
Government continues to engage in anti-union measures, such as 
pressuring public sector employees not to unionize or taking 
retaliatory measures against those who joined a union. If confirmed, I 
commit to working with labor groups to strengthen workplace 
protections.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Montenegro, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Montenegro? What specifically will you commit to do to help 
LGBTI people in Montenegro?

    Answer. If confirmed, I will use my position to defend the human 
rights and dignity of all people in Montenegro, regardless of their 
sexual orientation or gender identity.
    Over the last decade, Montenegro has developed a fairly robust 
legal framework to protect the rights of LGBTI persons. Government 
officials often cite the Government of Montenegro's national strategy 
for protection of human rights of LGBTI persons, an anti-discrimination 
law, amendments to the criminal code, and expanded health benefits to 
the transgender population as signs of progress. However, negative 
public perception of LGBTI persons leads many to conceal their sexual 
orientation, and NGOs reported the number of attacks against LGBTI 
persons rose in 2017.
    In 2018, the Government of Montenegro introduced a draft same-sex 
partnership law (``Law on Life Partnership of Same-Sex Persons''), 
which would legalize same sex unions in the country. Under the draft 
law, which is expected to be adopted before the end of the year, same-
sex couples will be acknowledged as legal unions, but will not receive 
all the same rights as married heterosexual couples. If passed, 
Montenegro would become the second Balkan country (after Croatia) to 
adopt a same-sex partnership law. If confirmed, I would support the 
law's adoption and strongly advocate for the rights and social 
acceptance of LGBTI people.

    Question 11. How will you seek to boost resilience to Russian 
Government meddling within Montenegrin institutions and civil society? 
What types of U.S. assistance do you see as most critical in this 
regard? How will you address Montenegrin political actors engaged in 
illicit dealings with Russia or otherwise enabling malign Kremlin 
influence in the country?

    Answer. Montenegro's accession to NATO in 2017--a watershed moment 
for this small, multi-ethnic country--was, in part, a reflection of 
sustained U.S. engagement and support. The United States is committed 
to helping Montenegro advance the reforms needed to continue its Euro-
Atlantic integration while countering Russian efforts to derail this 
integration. In particular, U.S. foreign assistance helps Montenegro 
fight organized crime and corruption and strengthen independent media 
and civil society as the country seeks to join the EU by 2025. If 
confirmed, I will continue to support these ongoing programs, including 
those funded through the FY 2017 Security Assistance Appropriations Act 
(SAAA).
    Our assistance also helps to counter vulnerabilities that make 
Montenegro susceptible to Russian malign influence by strengthening 
judicial institutions; combatting trafficking in persons, organized 
crime, and corruption; reducing avenues for corruption, including in 
the economic sector; and supporting exchange programs to bolster civic 
participation and civil society.

    Question 12. Does the administration support EU accession for 
Montenegro? If confirmed, how will you support democratic and rule of 
law reforms in Montenegro that are necessary to make progress toward 
the 2025 EU enlargement goals?

    Answer. Yes, the administration supports Montenegro's EU accession. 
If confirmed, I will continue our work to depoliticize the judiciary, 
advance the independence and efficiency of judges and prosecutors; 
improve anti-corruption efforts; strengthen the fight against organized 
crime by enhancing law-enforcement capacities and coordination; and 
safeguard media freedom--all necessary reforms for EU accession.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Judy Rising Reinke by Senator Benjamin L. Cardin

    Question 1. The shooting of investigative journalist Olivera Lakic 
in Montenegro in early May was a stark reminder not only of the dangers 
of investigative journalism in Montenegro, but also of the existence of 
organized crime and official corruption which needs to be addressed.

   Even though Montenegro is a NATO ally a favorable toward the United 
        States, will you be open and frank in condemning the 
        intimidation of investigative journalists and in pointing 
        fingers, if necessary, at those we believe are allowing and 
        even encouraging this situation?

    Answer. Yes. Freedom of expression, including of the press, is a 
cornerstone of democracy, and I pledge to advocate for media freedom in 
Montenegro. As part of this effort, I commit to meet regularly with 
Montenegro's independent media outlets.

    Question 2. It is widely known that Russian influence in Montenegro 
is strong, and that the Kremlin was involved in the 2016 coup attempt 
in Montenegro. Russian foreign investment is usually the basis upon 
which such political meddling is subsequently based, and Russian 
investment in Montenegro is reported to be very significant.

   Does corruption give Russian investment an edge over U.S. or other 
        European investment, and what can be done about this?

    Answer. The United States is committed to helping Montenegro 
advance the reforms needed to continue its rapid Euro-Atlantic 
integration, counter Russian efforts to derail this integration, and 
boost U.S. and European investment. In particular, U.S. foreign 
assistance helps Montenegro fight organized crime and corruption and 
strengthen Montenegrin justice sector institutions as the country seeks 
to join the EU by 2025.
    Our assistance also helps to counter vulnerabilities that make 
Montenegro susceptible to Russian malign influence by reducing avenues 
for corruption in the economic sector, promoting exchange programs to 
bolster civic participation and civil society, supporting independent 
media outlets producing objective news, and improving the Montenegrin 
public's ability to detect and push back on disinformation.

    Question 3. It is widely known that Russian influence in Montenegro 
is strong, and that the Kremlin was involved in the 2016 coup attempt 
in Montenegro. Russian foreign investment is usually the basis upon 
which such political meddling is subsequently based, and Russian 
investment in Montenegro is reported to be very significant.

   What will you do as Ambassador to encourage U.S. investment in 
        Montenegro and to encourage Montenegro to make itself a more 
        attractive place for U.S. investment?

    Answer. Since regaining independence in 2006, Montenegro has 
adopted a legal framework that encourages privatization, employment, 
and exports. However, Montenegro remains an economy in transition, and 
implementation lags behind its legal structures. If confirmed, I will 
work with the Montenegrin Government to encourage U.S. investment 
stalled by bureaucratic red tape. I will also support Montenegro's 
participation in regional economic growth programs designed to 
strengthen the business environment, lower barriers to entry, and 
facilitate business operations, thereby reducing avenues for corruption 
and establishing a level playing field for U.S. I will also work to 
encourage the Montenegrin Government to adopt policies that are 
welcoming to entrepreneurs and private enterprise.

    Question 4. Montenegro has been on the State Department's Tier 2 
Watch List regarding its performance in combating trafficking in 
persons for two years in a row. Being at Tier 2, let alone on the Watch 
List, should be considered unacceptable for any country, but 
particularly for a member of the NATO alliance, which stresses the 
common values of its members. It also makes it more difficult for the 
United States to raise problems in other countries around the world 
when our close friends and allies have poor records.

    Will you commit to giving this problem greater attention as the 
U.S. Ambassador to Montenegro, and to press Montenegrin officials to 
meet the minimum standards for the elimination of trafficking?

    Answer. Yes, absolutely. If confirmed, I will strongly urge the 
Montenegrin Government to make more progress in meeting the minimum 
standards of the Trafficking Victims Protection Act and more 
aggressively combat this terrible scourge.

    Question 5. Montenegro has been on the State Department's Tier 2 
Watch List regarding its performance in combating trafficking in 
persons for two years in a row. Being at Tier 2, let alone on the Watch 
List, should be considered unacceptable for any country, but 
particularly for a member of the NATO alliance which stresses the 
common values of its members. It also makes it more difficult for the 
United States to raise problems in other countries around the world 
when our close friends and allies have poor records.

   Do you have any thoughts of specific action areas where you will 
        encourage Montenegrin authorities to focus their attention?

    Answer. Yes, the Government has not convicted any traffickers under 
its trafficking law since 2014 and victim identification efforts remain 
low. If confirmed, I will urge the Government to increase efforts in 
prosecution and victim protection, such as increasing proactive 
identification by first responders and fixing coordination issues 
between prosecutors and investigators.

    Question 6. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a Foreign Commercial Officer overseas, I have been 
responsible for helping U.S. firms do business in challenging markets 
in a manner consistent with human rights principles. One example was my 
role in an informal working group focused on the extractive industry in 
the Philippines. This group, composed of representatives of U.S., 
Australian and Canadian businesses and embassies, met regularly to 
share information and creatively address challenging issues in the 
mining sector. Together we initiated efforts to promote adoption of the 
Extractive Industries Transparency Initiative (EITI) in the Philippines 
to enhance governance of natural resource extraction, to establish a 
more credible fiscal regime, create audits for environmental 
compliance, and, ultimately, protect local peoples from exploitation, 
such as the displacement of indigenous peoples. This effort continued 
after my departure from Manila, and ultimately resulted in the decision 
by the Government of the Philippines to join the EITI in 2013.
    I also ensured that all Officers of the Foreign Commercial Service 
understood and promoted the principles of Human Rights in their daily 
work while serving as the Deputy Director General. During my tenure in 
this position, my training and development team developed and launched 
a mandatory on-line Human Rights training module. The training 
addresses rule of law, the Foreign Corrupt Practices Act, and the 
principles of Human Rights, including the concepts of corporate social 
responsibility. FCS Officers are trained to support human rights in the 
field by advising U.S. firms of the impact of their activities in a 
given country; ensuring that U.S. firms carry out due diligence on 
business partners; and helping U.S. firms make sound decisions to avoid 
and report host country practices that perpetrate human rights abuses.

    Question 7. What are the most pressing human rights issues in 
Montenegro? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Montenegro? What do 
you hope to accomplish through these actions?

    Answer. According to the Department's 2017 Human Rights Report on 
Montenegro, the most significant human rights issues include: use of 
force by police and prison guards to obtain confessions and information 
from detainees and prisoners; lack of judicial independence; some 
infringements on media freedom; corruption, including law enforcement 
agencies and the courts; violence against LGBTI persons; and reports of 
forced labor and child labor. Impunity remains a problem, and there are 
reported instances where the Government has not punished officials who 
committed human rights abuses.
    To address these problems, I would, if confirmed:

  <diamond> support efforts to make Montenegro's law enforcement 
        institutions more professional and competent;
  <diamond> support the work of the independent human rights ombudsman 
        in Montenegro; and
  <diamond> continue to support and strengthen civil society and 
        independent media, which serve as important watchdogs over the 
        Government, including the police and justice system.

    In that regard, I would strongly support ongoing civil society 
programs which provide support to NGOs involved in raising public 
participation in, and awareness of, on-going reforms required for 
greater Euro-Atlantic integration. I would ensure that the Embassy 
continues advocacy on these issues in public and in private, which has 
proved effective in drawing attention to deficiencies and encouraging 
better compliance with international norms.

    Question 8. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Montenegro in 
advancing human rights, civil society, and democracy in general?

    Answer. There are some positive examples of progress in the 
advancement of human rights in Montenegro. Over the last decade, 
Montenegro has developed a fairly robust legal framework to protect the 
rights of LGBTI persons. Government officials often cite the Government 
of Montenegro's national strategy for protection of human rights of 
LGBTI persons, an anti-discrimination law, amendments to the criminal 
code, and expanded health benefits to the transgender population as 
signs of progress.
    Nevertheless, negative public perception of LGBTI persons leads 
many to conceal their sexual orientation, and NGOs reported the number 
of attacks against LGBTI persons rose in 2017. In 2018, the Montenegrin 
Government introduced a draft same-sex partnership law (``Law on Life 
Partnership of Same-Sex Persons''), which would legalize gay marriage 
in the country. Under the draft law that is expected to be adopted 
before the end of the year same-sex couples will be acknowledged as 
legal unions, but will not receive all the same rights as married 
heterosexual couples. If passed, Montenegro would become the second 
Balkan country (after Croatia) to adopt a same-sex partnership law.

    Question 9. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Montenegro? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Civil society plays an indispensable role in preserving 
fundamental human rights, rule of law, and transparency. If confirmed, 
I am committed to meeting with human rights, civil society, and NGOs, 
both domestic and abroad, in support of democratic values in 
Montenegro. If confirmed, I will ensure that our Embassy continues to 
abide by the Leahy Law and actively assesses the bona fides of any and 
all would-be recipients of U.S. security assistance and participants in 
security cooperation activities, to reinforce our commitment to human 
rights.

    Question 10. Will you and your embassy team actively engage with 
Montenegro to address cases of key political prisoners or persons 
otherwise unjustly targeted by Montenegro?

    Answer. The State Department's 2017 Human Rights Report states that 
there were no reports of political prisoners in Montenegro. I will, if 
confirmed, actively engage with Montenegro, in the unlikely event of 
politically motivated targeting or imprisonment.

    Question 11. Will you engage with Montenegro on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I will promote human rights, civil rights, 
and governance issues across the full range of actors in Montenegro, 
from host government interlocutors to members of civil society, faith-
based organizations, and local activists.

    Question 12. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 13. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 14 . Do you or do any members of your immediate family 
have any financial interests in the Montenegro?

    Answer. No. Neither I, nor my immediate family members, have any 
financial interests in Montenegro.

    Question 15. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am committed to promoting and supporting an Embassy 
workplace that is tolerant and embracing of diversity in all its forms. 
Diversity results in better decision-making and more impactful 
programs. I will encourage all members of my team to actively 
contribute their talents and ideas. If confirmed, one of my priorities 
will be to encourage Foreign Service officers from varied backgrounds 
and groups to join my team and contribute their energies and talents. I 
look forward to mentoring all of my staff, both American and 
Montenegrin, to achieve their full professional potential during my 
tenure.

    Question 16. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I fully intend to lead by example, and 
demonstrate my commitment to diversity and inclusion in all of my 
interactions with members of my team. Early in my tenure, I will 
establish my clear expectations regarding fairness, tolerance, and 
respect for all, and I will ensure that any behaviors that fail to meet 
this standard are quickly corrected. I look forward to the opportunity 
to mentor the future leaders of the Foreign Service on my team what a 
fair, respectful and inclusive workplace can bring to the work we do on 
behalf of the American people.

                               __________


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, AUGUST 22, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:14 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
presiding.
    Present: Senators Rubio [presiding], Flake, Gardner, Young, 
Menendez, Cardin, Shaheen, Murphy, Markey, and Booker.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Senate Foreign Relations committee will 
come to order.
    This is the committee nominations hearing for the Honorable 
Kevin Sullivan of Ohio, a career member of the Senior Foreign 
Service, Class of Minister-Counselor, to be the Ambassador to 
the Republic of Nicaragua; Mr. Francisco Palmieri of 
Connecticut, a career member of the Senior Foreign Service, to 
be the Ambassador to the Republic of Honduras; and Ms. Karen 
Williams of Missouri, a career member of the Senior Foreign 
Service, to be the Ambassador to the Republic of Suriname. I 
thank you for being here with us and for your continued 
willingness to serve our country.
    If you are confirmed, each of you will have a critical role 
in advancing U.S. foreign policy and objectives in your 
respective posts abroad to which you have been nominated. And 
your nominations, I would say, are timely. Nicaragua is in the 
middle of a violent political crisis that I fear could even 
become a civil war and that I believe increasingly poses a 
threat to the national security interests of the United States 
and to regional security. The Ortega regime has already 
murdered hundreds of Nicaraguan citizens through the use of 
irregular paramilitary groups and its attempts to quell 
protests against the Ortega-Murillo oppressive and corrupt 
regime.
    The situation in Nicaragua has all the necessary 
ingredients to spiral out of control and destabilize the region 
even further, and that includes a deteriorating economy, a 
government rotten with corruption and cronyism, a military 
divided between the Government and the people, paramilitary 
groups, as I said earlier, that swear allegiance to Ortega but 
whose chain of command is unclear, and citizens who want their 
voice to be heard.
    Florida is home to a vibrant Nicaraguan American community, 
and I have watched with great concern the repressive response 
by the Sandinista regime, led by Ortega and his wife, the vice 
president, toward student demonstrators protesting corruption 
and demanding early elections.
    Nicaragua continues to align itself with Cuba and Russia 
and Venezuela in international forums, often against the 
interests of the United States and other democracies, and we 
need a strong ambassador in Managua to give the people of 
Nicaragua a clear and consistent message that the United States 
stands with them and their demands and expectations for 
democracy, for respect for human rights, and for the rule of 
law.
    Honduras has its own set of challenges. Many of its 
citizens are having to choose between street violence and 
fleeing their country. One of the most effective answers to the 
migratory crisis that our nation is facing on our southern 
border, perhaps the most effective, would be to work with the 
Governments in Central America to improve the security 
situation so that their citizens do not feel like they have to 
leave these countries. Our foreign assistance can help in 
improving policing and training prosecutors and decreasing 
corruption and improving local economies, all of which give 
people a reason to stay where I believe they want to stay, in 
their own country.
    In Honduras, what we need is a highly visible ambassador 
who stands for our ideals and who supports the Honduran 
Government while also holding it accountable for creating an 
environment where everyday Hondurans feel safe and have access 
to jobs that allow them to feed their families and provide for 
a better future and not have to flee their country.
    Lastly, Suriname has been a relatively stable democracy 
since the late 1990s, with an economy mostly centered on 
natural resources extraction, especially gold and oil. Like 
many countries in the region, it has unfortunately been a 
source of transit and destination for men, women, and children 
subject to sex trafficking and forced labor. Combatting human 
trafficking is an issue of personal importance to me, as it is 
to most of the members of this committee, and we have made it a 
legislative priority of our work here during my time in the 
Senate and during many of the careers of those on this 
committee to deal with this issue as a legislative priority.
    Many trafficked persons are used as forced labor in mining 
camps, as well as in the agriculture and fishing industries. 
While the country continues to make good efforts, it does not 
fully comply with minimum standards for the elimination of 
trafficking. They are currently on the Tier 2 Watch List. I 
hope that, if confirmed, our new ambassador will work with the 
Government to improve their efforts to combat trafficking in 
all of its forms.
    Again, I thank each of you and your families for your 
willingness and your commitment to continue to serve our 
country. Our diplomats are some of the finest, if not, I would 
say, the finest in the entire world, and they are the building 
blocks of our efforts to defend freedom, security, and 
prosperity for ourselves and for our allies.
    I now turn it over to the Ranking Member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Chairman Rubio. I thank you for 
your leadership on many issues, but particularly on the Western 
Hemisphere. There are significant challenges that we have in 
our own region, and your leadership has been very, very 
important in that.
    I first want to acknowledge the three individuals who are 
before us, all who have devoted their life to public service. 
These are career diplomats with extremely difficult 
assignments. You chose early in your careers to serve our 
country, and we are deeply grateful for that.
    The three posts that are being considered today are all 
challenging posts. These are not places that you would normally 
pick to spend your time, recognizing the challenges in all 
three of these countries. So we thank you for your willingness 
to continue to serve, and we thank your families because you 
cannot do this without the support of your family. They also 
are sacrificing for our country.
    It was appropriate that this year's Summit of the Americas 
topic was democratic governance against corruption, because 
when I think about the three countries that are being 
considered for our representatives today, all three have 
challenges in good governance and fighting corruption, 
something that this committee has taken a leadership role on, 
and we look for you to use our presence in these countries, our 
mission of promoting American values, as Chairman Rubio said, 
including democracy, good governance, human rights, and rule of 
law.
    In Nicaragua it is very challenging, no question about 
that. The corruption of Nicaraguan officials blatantly abusing 
their power against the people of their country has caused a 
circumstance, as Chairman Rubio indicates, close to civil war. 
Human rights abuses, corruption with impunity, these are all 
issues that we need to deal with, and I thank Chairman Rubio 
and Chairman Menendez for their leadership on this issue over 
the years, including their work in this Congress.
    In Honduras, I have seen firsthand--I have visited 
Honduras. I have seen firsthand the gang violence, the 
political instability, corruption and poverty that played out 
in the 2017 elections. Although there is now an elected leader, 
the question about the integrity of that election lingers on.
    The anti-corruption commission needs to be supported, and 
the support for it has been inconsistent, and we look forward 
to our commitment to making sure that people of Honduras have 
the support for honesty in their system.
    I do also want to mention the Berta Caceres case. Her 
daughter yesterday called for international observers at the 
trial, and I think we all are somewhat suspect as to how that 
case will proceed. We know there is an effort, but I think the 
U.S. involvement there is going to be particularly important.
    In Suriname, as the Chairman pointed out, they are on Tier 
2 Watch, but they were on Tier 3. It is a country that has 
challenges on trafficking of human labor, and on narcotics, 
drug issues. I would be interested in hearing how we can use 
the Caribbean Basin Security Initiative as it relates to 
Suriname to be able to have a more effective policy.
    I want to mention a couple of issues in conclusion that 
affect all countries. The Chairman mentioned about safety in 
the countries so that people want to stay there. I fully 
support that. That has been our policy. We have a robust amount 
of foreign aid to try to improve the economics and security and 
governance, particularly in Central America. We have many 
individuals that are legally in this country under temporary 
protected status, particularly from Honduras and Nicaragua, in 
the State of Maryland and throughout our country.
    I look for leadership in those that are going to be Chief 
of Mission in these countries to get the best advice possible 
to the State Department for decisions made by Homeland Security 
on the extension of temporary protected status, because we know 
today the circumstances in those two countries do not warrant 
the return of these individuals even though this administration 
has revoked the temporary protected status. We are going to try 
in Congress to do something about that, but we need the help of 
those who are on the ground in the country working with the 
country as to the best way to handle those who are legally in 
this country today that sought refuge because of the 
instability in their country.
    We know about significant human rights violations. We 
recently passed new tools under the global Magnitsky to use 
against human rights violators. It has been used in Central 
America. Many of us believe it could be more effectively used, 
and we will need the help and advice of those that are leading 
our missions as to who should be candidates for this type of 
sanction to improve the human rights and give hope to the 
people of the country that, yes, the United States is paying 
attention to the human rights needs of their country.
    Now, last on migration, today's report shows that we have 
problems on the Nicaragua-Costa Rica border with violence 
coming about because of misinformation that was there. 
Migration causes problems. In Venezuela, Mr. Chairman, the 
numbers will soon exceed Syria in the number of those that have 
been displaced as a result of the problems in Venezuela. The 
country that has had the greatest impact from that is Colombia. 
I mention that because Senator Roy Blunt and myself are co-
chairing a task force to follow up on Colombia. Clearly, 
Venezuela is--the migration issues in that region are very much 
affecting the stability of the region.
    So I very much welcome the three nominees that we have 
here. Your qualifications are well known. I think most of our 
questions are going to deal with the challenges that you are 
going to have in-country so that you recognize that we can work 
together in order to deal with those challenges.
    Senator Rubio. Thank you.
    I want to recognize the Ranking Member of the full 
committee, who has a deep interest in the Western Hemisphere, 
for some opening comments.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman, for that 
opportunity. Let me salute you and Senator Cardin for not only 
having this nomination hearing but for the work you are 
collectively doing on the Western Hemisphere. I appreciate 
Senator Cardin taking up a lot of the issues that are critical 
in the hemisphere. He has been a strong champion of many of the 
things I care about, as well as independently through his 
global leadership on Magnitsky, pursuing it in the Western 
Hemisphere.
    Let me just say to all the nominees, I appreciate your long 
service to our country. I always feel that way when we see 
career members of the Foreign Service to be nominated for 
ambassadorships, and these three countries are incredibly 
important.
    In a region that largely otherwise is committed to human 
rights and democracy, for four months the international 
community has watched in horror as Daniel Ortega and Rosario 
Murillo have authorized their police and paramilitary groups to 
wield extreme force against their own citizens, resulting in 
more than 450 deaths, hundreds in prison, and dozens forcibly 
disappeared.
    The administration has rightfully imposed global Magnitsky 
sanctions on three Nicaraguan officials, but I believe stronger 
action is needed. That is why I introduced bipartisan 
legislation last month with Senator Rubio to increase targeted 
sanctions against Nicaraguan officials involved in human rights 
abuses and efforts to undermine democracy, and I am pleased 
that Chairman Corker has agreed to consider our bill.
    Turning toward Honduras, in recent months Americans have 
watched in horror as the Trump administration has adopted an 
inhumane policy of ripping children from their Honduran and 
Central American parents at the U.S. border. Moreover, former 
Secretary Tillerson's deliberate disregard of the expertise of 
career diplomats and his recommendation to end TPS for Honduras 
put at risk our national security and the safety of TPS 
beneficiaries and their U.S. citizen children, something that I 
join Senator Cardin in hoping that we can find a way to turn 
the clock back on. It is not in the national interests of the 
United States, or of its security, to send people back when our 
own career diplomatic people tell us that the situation on the 
ground is not conducive to return a large number of those 
nationals.
    Additionally, while President Hernandez has been an 
important U.S. security partner, we must support reform efforts 
to promote the rule of law and transparency, and to confront 
impunity, notably, as Senator Cardin said, for the 2016 murder 
of indigenous leader and environmental activist Berta Carceres 
and the two dozen people killed in protests following last 
year's election.
    So I look forward to our nominees' testimony, Mr. Chairman, 
and the opportunity for questions.
    Senator Rubio. I know Senator Gardner has another meeting, 
and he just wanted to make a brief comment because he won't be 
able to stay for the questioning.
    Senator Gardner. Thank you, Mr. Chairman. Thank you very 
much for the opportunity to do this.
    Thanks to the nominees here today. I apologize. I have 
legislation in another committee that I am going to have to go 
to right now.
    But to our nominees Mr. Sullivan and Mr. Palmieri, Honduras 
and Nicaragua maintain relationships with Taiwan, and as we 
have seen in recent hours, El Salvador has made the unfortunate 
decision to take a very significant step backwards with its 
relationship in regard to the United States as a result of its 
de-recognition of Taiwan.
    So I hope that upon your confirmation you will both make it 
a high priority to emphasize how important Taiwan is to the 
world, its responsibility, its voice, its leadership, and their 
relationship with Taiwan matters very much to the relationship 
they have going forward with the United States.
    Mr. Chairman, thank you.
    Senator Rubio. Thank you all for being here. You are all 
veterans of this process, so the less time you talk, the more 
time we can ask you questions and let you talk. But it is up to 
you. You have your 5 minutes for opening statements. We have it 
in writing.
    With that, Ms. Williams, I will begin with you. Thank you 
for being here.

STATEMENT OF KAREN L. WILLIAMS, OF MISSOURI, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF SURINAME

    Ms. Williams. Thank you, Senator. Mr. Chairman, Ranking 
Member, and distinguished members of the committee, I am 
honored to appear here today as President Trump's nominee to be 
the next U.S. Ambassador to the Republic of Suriname. I am 
grateful to the President and to Secretary Pompeo for the 
confidence they have placed in me. If confirmed, I pledge to 
work closely with the Congress to advance our nation's 
interests in Suriname.
    I have had the honor to serve our country for nearly 27 
years as a Foreign Service Officer. I was raised with strong 
role models of commitment to our nation, to service, and to 
helping others. My father, a Korean War veteran, retired Army 
Master Sergeant, and retired police officer, ensured that his 
sons and daughter valued our nation and its ideals. My British-
born mother, an avid U.S. citizen and patriot for more than 30 
years, gave her children a commitment to helping others in 
need. I am blessed they are still with me, and although age and 
health preclude their appearance here, they are watching from 
home in Springfield, Missouri. I am equally and also blessed 
and very happy that a number of wonderful friends are in the 
room today.
    I am fortunate to have a diverse career ranging overseas 
from Afghanistan to Paraguay and domestically at Main State and 
U.S. Special Operations Command. I am privileged to have worked 
alongside outstanding diplomats, development professionals, 
military members, and other interagency colleagues. Together in 
my various postings, we have utilized programs and engagement 
opportunities to further U.S. national security objectives such 
as counter-terrorism, counter-narcotics, and U.S. regional 
security, as well as working for a peaceful and prosperous 
world through democratic institution building and supporting 
civic education. I am pleased, if confirmed, to return to the 
Caribbean region, in which I have gained experience pertinent 
to Suriname in roles as Deputy Director of Caribbean Affairs 
and as Deputy Chief of Mission and Charge d'Affaires to Guyana 
and to CARICOM.
    If confirmed, I will proudly represent the United States in 
Suriname, an ethnically and religiously diverse nation in which 
Christianity, Hinduism, Islam, Judaism, and indigenous 
religions live peacefully and productively together.
    If confirmed, I will work with the Surinamese Government to 
further develop existing mutually beneficial opportunities for 
economic growth and increased trade, as well as explore new 
opportunities. U.S. companies are currently conducting oil 
exploration off the coast of Suriname and hope to find the same 
success as has occurred in neighboring Guyana. The gold fields 
of Suriname have also drawn U.S. companies and, in cooperation 
with these companies and the Government of Suriname, the U.S. 
Government is supporting efforts to curb illicit mining and the 
damaging use of mercury.
    Citizen security is a key mutual interest of the U.S. and 
Suriname and is in keeping with the goals of the Caribbean 
Basin Security Initiative and the Caribbean 2020 Strategy. If 
confirmed, I will continue to support bilateral and regional 
assistance that provides technical training to law enforcement 
officers, seeks to combat money laundering and financial 
crimes, and supports strengthening of the rule of law. Suriname 
is on the Trafficking in Persons Report Tier 2 Watch List for 
the second year in a row after being upgraded to that level in 
2017. While Suriname has been making significant efforts to 
meet the minimum standards, there are additional steps needed. 
If confirmed, I pledge to work with the Surinamese Government 
to meet minimum standards for the elimination of trafficking in 
persons.
    My highest priority as Chief of Mission, if confirmed, will 
be to safeguard the welfare of U.S. citizens and embassy staff, 
both U.S. and local, to the utmost limits of my ability.
    In closing, if confirmed, I look forward to building the 
relations between our two great nations and defending and 
promoting the interests of the United States in the Republic of 
Suriname.
    Thank you, and I welcome your questions.
    [Ms. Williams's prepared statement follows:]


                  Prepared Statement of Karen Williams

    Mr. Chairman, Ranking Member Cardin, and distinguished members of 
the committee, I am honored to appear here today as President Trump's 
nominee to be the next U.S. Ambassador to the Republic of Suriname. I 
am grateful to the President and to Secretary Pompeo for the confidence 
they have placed in me. If confirmed, I pledge to work closely with the 
Congress to advance our nation's interests in the Republic of Suriname.
    I have had the honor to serve our country for nearly 27 years as a 
Foreign Service Officer. I was raised with strong role models of 
commitment to our Nation, to service, and to helping others. My father, 
a Korean War veteran, retired Army Master Sergeant, and retired police 
officer, ensured that his sons and daughter valued our Nation and its 
ideals. My British-born mother, an avid U.S. citizen and patriot for 
more than 30 years, gave her children a commitment to helping others in 
need. I am blessed they are still with me and although age and health 
preclude their presence here, they are watching from home in 
Springfield, Missouri. I am equally blessed that a number of wonderful 
friends are present for the hearing.
    I am fortunate to have a diverse career ranging from Afghanistan to 
Paraguay overseas and at Main State and U.S. Special Operations Command 
domestically. I am privileged to have worked alongside outstanding 
diplomats, development professionals, military members, and other 
interagency colleagues. Together in my various postings, we have 
utilized programs and engagement opportunities to further U.S. national 
security objectives such as counter-terrorism, counter-narcotics, and 
U.S. regional security, as well as working for a peaceful and 
prosperous world through building democratic institutions and 
supporting civic education. I am very pleased to return to the 
Caribbean region, in which I have gained experience pertinent to 
Suriname in roles as Deputy Director of Caribbean Affairs and in my 
time as Deputy Chief of Mission and long-serving Charge d'Affaires a.i. 
to Guyana and CARICOM.
    If confirmed, I will proudly represent the United States in 
Suriname--a peaceful and relatively young democracy that is among the 
most ethnically and religiously diverse in the world. It is a nation in 
which Christianity, Hinduism, Islam, Judaism, and indigenous religions 
live peacefully and productively together.
    If confirmed, I will work with the Surinamese Government to further 
develop existing mutually beneficial opportunities for economic growth 
and increased trade, as well as explore new opportunities. U.S. 
companies are currently conducting oil exploration off the coast of 
Suriname and hope to find the same success as has occurred in 
neighboring Guyana. The gold fields of Suriname have also drawn U.S. 
companies and, in cooperation with these companies and the Government 
of Suriname, the U.S. Government is supporting efforts to curb illicit 
mining and the use of mercury, which not only damages the environment 
in Suriname, but affects mercury levels in the U.S. Citizen security is 
another key mutual interest of the U.S. and Suriname and is in keeping 
with the goals of the Caribbean Basin Security Initiative (CBSI). If 
confirmed, I will also continue to support bilateral and regional 
assistance that provides technical training to law enforcement 
officers, seeks to combat money-laundering and financial crimes, and 
supports strengthening rule of law. Suriname is on the Trafficking in 
Persons Report Tier 2 Watch List for the second year in a row and while 
it has been making significant efforts to meet the minimum standards, 
there are additional steps needed. If confirmed, I also pledge to work 
with the Surinamese Government to meet minimum standards for the 
elimination of trafficking in persons.
    Elections are also on the horizon for Suriname. In May 2015, 
President Desire Bouterse's party won a majority, and he was reelected 
to a second five-year term in what international observers found to be 
a generally free and fair election. The next general election is slated 
for May 2020 and campaigning has already begun.
    If confirmed, I will seize upon opportunities to work with the 
Surinamese Government, civil society, and the media to again ensure 
free and fair elections.
    If confirmed, my highest priority as Chief of Mission will be to 
safeguard the welfare of U.S. citizens and Embassy staff--both U.S. and 
local--to the utmost limits of my ability. If confirmed, I look forward 
to building the relations between our two great nations and defending 
and promoting the interests of the United States in the Republic of 
Suriname.


    Senator Rubio. Thank you so much.
    Mr. Palmieri?

STATEMENT OF FRANCISCO LUIS PALMIERI, OF CONNECTICUT, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
  OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF HONDURAS

    Mr. Palmieri. Mr. Chairman and distinguished members of the 
committee, I am honored to be nominated to represent the United 
States as the U.S. Ambassador to the Republic of Honduras by 
President Trump. I thank Secretary of State Pompeo for his 
confidence in me.
    I could not be here without the love and support of my 
family, beginning with my wife, Suzanne, and our children, 
Ellis and Madeline. As the son of a Colombian immigrant and 
grandson of Italian immigrants, I am acutely aware of the debt 
my family and I owe this great nation.
    I would like to introduce my mother, Hannah Trujillo 
Palmieri, who is here as well today. (Applause.)
    Mr. Palmieri. I am proud to have served the United States 
as a career member of the Foreign Service for more than 32 
years. Our work at the State Department seeks to advance the 
United States interests in this region by promoting a 
democratic, secure, stable, and prosperous hemisphere, goals 
that members of this committee told me are important.
    The United States has a long and close strategic 
partnership with Honduras. Honduras' economic prosperity, 
democracy, security, and development are inextricably linked to 
U.S. national security.
    But there is no denying that the significant flow of 
migrants from Honduras has created complex challenges, a key 
concern to many senators on this committee. Honduras is 
addressing those underlying conditions driving migration, 
including the lack of jobs and economic opportunity, high 
levels of crime, and inefficient and sometimes corrupt 
government institutions.
    With important assistance from the United States Congress, 
Honduran Government institutions and social services for 
receiving returned migrants have improved. Honduras is also 
strengthening its border controls to prevent illicit 
trafficking and human smuggling.
    A national dialogue is vital to address the violence that 
occurred following the November 2017 election, to reform the 
electoral process, and most importantly to reconcile a deeply 
divided country. If confirmed, I will also make it a priority 
to assist the Honduran National Police make reforms. I learned 
during my service in Iraq how important an effective police 
force can be to a country.
    If confirmed, I will continue working with the Honduran 
Attorney General, Oscar Chinchilla, and the Public Ministry to 
expand its capacity to investigate and prosecute crimes, 
including human rights violations by security forces. I 
understand Honduras wants to do more to protect human rights 
defenders, labor activists, community leaders, and journalists, 
among many others.
    Corruption continues to be one of Honduras' most 
significant challenges. The OAS Mission to Support the Fight 
Against Corruption and Impunity in Honduras has been 
instrumental in supporting the Attorney General's work to 
dismantle longstanding corruption networks in Honduras. If 
confirmed, I will continue to support their work.
    Honduras is not the same country I lived and worked in 17 
years ago. But I know from that time that Honduras is a vital 
and loyal partner to this nation. Hondurans always stand by our 
side. On 9/11, I remember exactly where I was in Tegucigalpa 
when our country was attacked. I also remember how the 
Government and Hondurans of all political beliefs rallied to 
our side and our defense.
    The late Honduran musician, Guillermo Anderson, wrote in 
his song ``En Mi Pais'': ``Para quererte el corazon mio no 
alcanza, Pero esta luz multiplica la esperanza.'' It is an ode 
to the natural beauty of Honduras, to the indomitable spirit of 
the Honduran people, and to the possibility of a brighter, 
better future for his country. With that inspiration, if 
confirmed, I will work to advance U.S.-Honduran relations and 
ensure that working together we create conditions so that every 
Honduran can have a better alternative than to make that 
dangerous journey north to our border.
    Thank you, Mr. Chairman. I look forward to responding to 
your questions and to working closely with you and the members 
of this committee on your priorities in Honduras.
    [Mr. Palmieri's prepared statement follows:]


             Prepared Statement of Francisco Luis Palmieri

    Mr. Chairman and distinguished members of the committee, I am 
honored to be nominated to represent the United States as the U.S. 
Ambassador to the Republic of Honduras by President Trump. I thank 
Secretary of State Pompeo for his confidence in me.
    I could not be here without the love and support of my family, 
beginning with my wife, Suzanne, and our children, Ellis and Madeline. 
As the son of a Colombian immigrant and grandson of Italian immigrants, 
I am acutely aware of the debt my family and I owe this great nation. 
If confirmed, I am committed to representing the President and the 
American people to advance our national interests in Honduras and the 
Western Hemisphere.
    I am proud to have served the United States as a career member of 
the Foreign Service for more than 32 years. Throughout my career, I 
focused my service primarily on the Western Hemisphere, including a 
tour of duty in Honduras from 2001 through 2005. Our work at the State 
Department seeks to advance America's interests in this region by 
promoting a democratic, secure, stable, and prosperous hemisphere. I 
will work first and foremost to always advance American interests.
    The United States has a long and close strategic partnership with 
Honduras. Honduras' economic prosperity, democracy, security, and 
development are inextricably linked to U.S. national security. Joint 
Task Force Bravo, located at Soto Cano Air Base inside Honduras, is an 
important element in our regional defense posture.
    There is no denying the significant flow of migrants from Honduras 
and the two other Northern Triangle countries of El Salvador and 
Guatemala have created complex challenges. But, Honduras is addressing 
the underlying conditions driving migration, including the lack of jobs 
and economic opportunity, high levels of crime, and inefficient and 
sometimes corrupt government institutions.Hondurans must once again 
have hope for their future in Honduras.
    With important help from the United States, the Honduran 
Government's institutions and social services for receiving returned 
migrants have improved significantly under its Alliance for Prosperity 
plan. Honduras is strengthening its border controls to prevent illicit 
trafficking and human smuggling. Honduras and the other Northern 
Triangle countries are working to help their people find safety and 
opportunity at home. Under its Alliance for Prosperity plan, Honduras 
is committing four dollars for every one dollar of U.S. assistance.
    Honduras continues to face serious human rights challenges. If 
confirmed, I will work with the Honduran Government to address these 
problems. A national dialogue is vital to address the violence that 
occurred following the November 2017 election, to reform the electoral 
process, and most importantly to reconcile a deeply divided country. If 
confirmed, I will make it a priority to assist the Honduran National 
Police make reforms. I learned during my service in Iraq in 2010 how 
important an effective police force can be to a country. President 
Hernandez and the Honduran people all want to create a more 
professional and accountable police force that can earn their trust.
    If confirmed, I will continue working with the Honduran Attorney 
General Oscar Chinchilla and the Public Ministry to expand its capacity 
to investigate and prosecute crimes, including human rights violations 
by security forces. I understand Honduras wants to do more to protect 
human rights defenders, labor activists, community leaders, and 
journalists, among many others.
    Corruption continues to be one of Honduras' most significant 
challenges. The OAS Mission to Support the Fight Against Corruption and 
Impunity in Honduras, (MACCIH) has been instrumental in supporting the 
Attorney General's work to dismantle long-standing corruption networks 
in Honduras that threaten citizen security and undermine government 
institutions. If confirmed, I will continue to work with the OAS and 
the Honduran Government to support MACCIH and the Attorney General's 
new anti-corruption unit and the anti-corruption courts.
    Honduras is not the same country I lived and worked in 17 years 
ago. But I know from that time that Honduras is a valued and loyal 
partner to our nation.
    Hondurans always stand by our side. On 9/11 I remember exactly 
where I was in Tegucigalpa when our country was attacked. I also 
remember how the Government and Hondurans of all political beliefs 
rallied to our side and our defense. Then National Assembly Whip, now 
President, Juan Orlando Hernandez led the effort to pass the resolution 
committing Honduran troops to the international coalition in Iraq and 
then Minister of Security Oscar Alvarez made sure our Embassy had 
enhanced police protection. Across all of Honduras, there is a deep 
abiding respect and affection for the United States, even among those 
who are our harshest critics.
    The late great Honduran musician, Guillermo Anderson, wrote in his 
song En Mi Pais, ``Para quererte el corazon mio no alcanza, Pero esta 
luz multiplica la esperanza.'' \1\ It is an ode to the natural beauty 
of Honduras, to the indomitable spirit of the Honduran people, and to 
the possibility of a brighter, better future for his country. With that 
inspiration, if confirmed, I will work to advance U.S.-Honduran 
relations and ensure that working together we create conditions so that 
every Honduran can have a better alternative than to make that 
dangerous journey north to our border.
---------------------------------------------------------------------------
    \1\ Loosely translated: In My Country, ``My heart is not filled 
with enough love for you; but this [country's] light multiplies hope.''
---------------------------------------------------------------------------
    Thank you, Mr. Chairman. I look forward to responding to your 
questions.


    Senator Rubio. Thank you.
    Mr. Sullivan?

STATEMENT OF KEVIN K. SULLIVAN, OF OHIO, A CAREER MEMBER OF THE 
  SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF NICARAGUA

    Mr. Sullivan. Thank you. Mr. Chairman, members of the 
committee, I am honored to appear before you today as President 
Trump's nominee to serve as the U.S. Ambassador to Nicaragua. I 
am deeply grateful to President Trump and Secretary Pompeo for 
their support and confidence, and if confirmed I look forward 
to working closely with you and other members of Congress to 
advance the interests of the U.S.
    With your permission, I would like to begin also by 
thanking my family, including my wife, Mariangeles, who is with 
us, and my daughter, Sophie, who could not be, as well as the 
rest of my family for their unwavering love and support. Today 
I would especially like to salute the personal sacrifices that 
our embassy families evacuated from Managua are making in 
support of our vital mission there.
    Mr. Chairman, I have spent much of my 30-year career in the 
State Department working in the Western Hemisphere. I have 
worked overseas building strong bilateral relationships with 
Chile and Argentina, in the latter case as Charge d'Affaires 
for 18 months. In my most recent position as Deputy Permanent 
Representative of the U.S. Mission to the Organization of 
American States, where I also served as Charge, I was proud to 
work with other member state representatives to pass 
groundbreaking resolutions in defense of human rights and 
fundamental freedoms of the Venezuelan and Nicaraguan people. 
If confirmed, I believe this experience, as well as my 
familiarity with the region's enduring challenges, would enable 
me to lead the U.S. Mission in Managua effectively.
    I am convinced that strong, mutually beneficial 
relationships with our Western Hemisphere neighbors are 
essential to our national security as well as to our future 
prosperity. Greater regional integration is an essential 
element of the U.S. strategy for Central America, so the 
current crisis in Nicaragua not only jeopardizes the well-being 
of Nicaraguans but also negatively affects the prospects of its 
Central American neighbors.
    Mr. Chairman, we have all witnessed the deeply troubling 
developments in Nicaragua over recent months, as peaceful 
protests over changes to pensions quickly transformed into a 
much broader public repudiation of the Nicaraguan Government. 
Since protests and repression began in April, the United States 
has been outspoken in denouncing the Government-instigated 
violence and intimidation campaign which has cost the lives of 
over 300 people, and some estimates, as mentioned, are much 
higher. As both Vice President Pence and Secretary Pompeo have 
said, ``We join with nations around the world in demanding that 
the Ortega Government respond to the Nicaraguan people's 
demands for democratic reform and hold accountable those 
responsible for violence.''
    Governments throughout the Americas and around the world 
have added their voices to the chorus calling for an end to the 
killing in Nicaragua. The administration will continue working 
with its diplomatic partners in the region and international 
organizations, including the OAS, to seek an end to state-
sponsored violence and restore Nicaragua's degraded democratic 
institutions.
    If confirmed, I will urge the Nicaraguan Government to 
cease this repression and release those who have been 
arbitrarily detained. I applaud the courageous work of the 
Inter-American Human Rights Commission, the U.N. Human Rights 
Commission, and Nicaraguan human rights organizations who have 
been investigating these tragic events. I also strongly support 
the leading role of the Catholic Church and its brave efforts 
to mediate a peaceful resolution of this situation. I will 
ensure that the U.S. Government maintains regular contact with 
and support for a wide range of Nicaraguan civil society groups 
and human rights advocates. Every Nicaraguan deserves a 
government that upholds his or her human rights and fundamental 
freedoms, and fully respects the rule of law.
    Sustainable solutions can only be found through early, free 
and fair elections with international observation, through 
which the Nicaraguan people can freely decide their nation's 
destiny.
    Despite a decade of economic growth that has out-performed 
the region, Nicaragua remains the second poorest country in the 
Western Hemisphere. The current social unrest has added major 
uncertainty to what had been a relatively promising economic 
trajectory. Truly transformative economic growth to lift 
Nicaragua out of poverty will require new attitudes and 
approaches in key institutions. Nicaragua's promising 
university students, for example, cannot be seen as terrorists 
but rather as the young men and women who will lead their 
country towards a more prosperous future.
    If confirmed, I will look for new ways for the United 
States to support the Nicaraguan people on their road to 
freedom and prosperity. I will also pursue cooperation on 
issues of U.S. national security such as counter-narcotics, as 
appropriate, bearing in mind the evolution of the current 
crisis. And I will ensure, as a matter of the highest priority, 
the protection of U.S. citizens and Mission personnel in 
Nicaragua.
    Mr. Chairman, committee members, I thank you for your 
consideration of my nomination and welcome your questions.
    [Mr. Sullivan's prepared statement follows:]


                     Statement of Kevin K. Sullivan

    Mr. Chairman, members of the committee, I am honored to appear 
before you today as President Trump's nominee to serve as the U.S. 
Ambassador to Nicaragua. I am deeply grateful to President Trump and 
Secretary Pompeo for the support and confidence they have placed in me, 
and, if confirmed, I look forward to working closely with you and other 
Members of Congress to advance the interests of the United States.
    With your permission, I would like to begin by thanking my family, 
including my wife Mariangeles and my daughter Sophie, for their 
unwavering love and support. Like many Foreign Service family members, 
they have made enormous sacrifices so that I can continue to serve our 
country, a privilege for which I will always be grateful. Today I would 
especially like to salute the personal sacrifices that our Embassy 
families evacuated from Managua are making in support of our vital 
mission there.
    Mr. Chairman, I have spent much of my 30-year State Department 
career in the Western Hemisphere. I have worked overseas with dedicated 
colleagues building strong bilateral relationships with Chile and 
Argentina, in the latter case as Charge d'Affaires for 18 months. In 
positions here in Washington, I have focused on our regional 
priorities, like promoting inclusive economic growth, and advancing 
democracy and human rights. In my most recent position as Deputy 
Permanent Representative of the U.S. Mission to the Organization of 
American States, where I also served as Charge for over a year and a 
half, I was proud to work with other member state representatives to 
pass groundbreaking resolutions in defense of the human rights and 
fundamental freedoms of those in Venezuela and Nicaragua. If confirmed 
I believe this experience, as well as my familiarity with the region's 
enduring challenges, would enable me to lead the U.S. Mission in 
Managua effectively.
    I am convinced that strong, mutually beneficial relationships with 
our Western Hemisphere neighbors are essential to our national security 
as well as to our future prosperity. As you know, the United States 
Strategy for Central America is a multiyear plan focused on promoting 
prosperity, enhancing security, and improving governance in the region. 
The plan advances U.S. national security by addressing the drivers of 
illegal immigration and illicit trafficking, and also reflects the 
aspirations and commitments of the regions' governments. Greater 
regional integration is an essential element for this joint strategy to 
succeed, and so the current crisis in Nicaragua not only jeopardizes 
the well-being of Nicaraguans, but also negatively affects the 
prospects of its Central American neighbors.
    Mr. Chairman, we have all witnessed the deeply troubling 
developments in Nicaragua over recent months, as peaceful protests over 
changes to pensions quickly transformed into a much broader public 
repudiation of the Ortega Government. Nation-wide demonstrations were 
fueled by anger over violent repression that had taken the lives of 
dozens of demonstrators, as well as by deep resentment over the steady 
erosion of Nicaragua's democratic institutions.
    President Ortega rejected a proposal from the opposition Civic 
Alliance, put forward by the Nicaraguan Episcopal Conference, for 
electoral reforms and early presidential elections in 2019. At the same 
time, the Government's ongoing violence and intimidation campaign 
against its own people intensified. Over 300 Nicaraguans have been 
killed, including many students, hundreds have been detained and remain 
missing, and tens of thousands have fled the country in the face of 
this brutal repression. That repression has even included physical and 
reputational attacks on representatives of the Catholic Church, as well 
as the arrests of several other prominent civil society leaders 
involved in the talks. While violent clashes in the streets have 
diminished in recent weeks, the Ortega Government, and armed groups 
loyal to it, continue to intimidate and arbitrarily detain hundreds of 
individuals.
    Mr. Chairman, since protests and repression began in April, the 
United States has been outspoken in denouncing the government-
instigated violence and intimidation campaign. Vice President Pence 
said at the Organization of American States on May 7, and Secretary of 
State Pompeo reiterated on June 6, ``We join with nations around the 
world in demanding that the Ortega Government [respond] to the 
Nicaraguan people's demands for democratic reform and hold accountable 
those responsible for violence.''
    Governments throughout the Americas and around the world have added 
their voices to the chorus calling for an end to the killing in 
Nicaragua. The administration will continue working with its diplomatic 
partners in the region and international organizations, including the 
OAS, to seek an end to state-sponsored violence and restore Nicaragua's 
degraded democratic institutions.
    The administration has also taken a number of concrete steps to 
sanction individuals in Nicaragua involved in serious human rights 
abuses and large-scale corruption. If confirmed, I will work to expose 
those responsible for the Nicaraguan Government's ongoing violence and 
intimidation campaign against its people and promote accountability for 
their misdeeds.
    If confirmed, I will urge the Nicaraguan Government to cease all 
government-sponsored violence and intimidation, and release those who 
have been arbitrarily detained. We applaud the courageous work of the 
IACHR, the U.N. Human Rights Commission, and Nicaraguan human rights 
organizations investigating these tragic events; those responsible for 
these abuses and violations must be held accountable. I strongly 
support the leading role of the Catholic Church and its brave efforts 
to mediate a peaceful resolution. I will ensure the U.S. Government 
maintains regular contact with and support for a wide range of 
Nicaraguan civil society groups and human rights advocates. I will also 
convey this administration's view that every Nicaraguan deserves a 
government that upholds and protects his or her human rights and 
fundamental freedoms, and respects the rule of law.
    Mr. Chairman, the violence and repression of the last several 
months have transformed Nicaragua's political reality. The people of 
Nicaragua, and the international community, will not simply forget the 
systematic human rights abuses perpetrated by government forces and 
their agents since mid-April. The United States, other members of the 
international community, and most importantly the people of Nicaragua 
have expressed their support for dialogue mediated by Church leaders. 
Sustainable solutions can only be found through early, genuinely free 
and fair, and transparent elections with international observation, 
through which the Nicaraguan people can freely decide their nation's 
destiny.
    Despite a decade of economic growth that outperformed the region, 
Nicaragua remains the second poorest country in Western Hemisphere. The 
current social unrest has added major uncertainty to what had been a 
promising economic trajectory. Transformative economic growth to lift 
Nicaragua out of poverty will require fundamental changes to the 
country's institutions and better strategic planning. Nicaragua's 
promising university students are not ``terrorists,'' but rather 
represent the engine capable of leading their country towards a more 
prosperous future. They can only do so if they are able to safely and 
freely develop their talents and dreams in their own country.
    If confirmed, I will look for new ways for the United States to 
support the Nicaraguan people on their road to freedom and prosperity. 
I will also pursue cooperation on issues of U.S. national security, 
such as counter-narcotics, as appropriate, bearing in mind the 
evolution of the current crisis. And I will ensure, as a matter of the 
highest priority, the protection of U.S. citizens and Mission personnel 
in Nicaragua.
    Mr. Chairman, committee members, I thank you again for your 
consideration of my nomination, and I welcome your questions.


    The Chairman. Thank you all for being here again.
    I will begin with the Ranking Member, Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Again, thank you all for your willingness to do this.
    I want to start with the fact that you are here today for 
confirmation. The separation of our branches but the importance 
of the confirmation process and our diplomats, particularly 
career diplomats, but all diplomats, that you need the support 
of the Senate, you need the support of the President, and we 
expect you to be an independent voice to us in the United 
States Senate on critically important issues.
    So I want to start with TPS because I am deeply concerned 
about the safety of people who are currently residing in 
Maryland and throughout our country that have a date on their 
back on leaving this country. We know that the recommendations 
from the Mission in-country was to extend the TPS. That is well 
known. We have bipartisan support to protect those who are on 
TPS status because we know the circumstances on the ground are 
such that it is not safe for their return. We know that the 
country, host country, wants the individuals to be able to stay 
here for various reasons. So we know the economics, we know the 
political, we know the safety issues.
    What we need is a path forward to protect these 
individuals, and we are going to need the help of our Chief of 
Mission, our ambassadors from these countries. My question is 
will you commit, referring now, of course, to Nicaragua and 
Honduras, will you commit to give this committee independent 
information in regards to the circumstances and the safety for 
those that are on TPS status here in the United States for the 
return to their countries so that we can develop the policies 
here which may be different than what the administration's 
position is?
    Mr. Palmieri. Senator, yes, I can commit that I will report 
to this committee and to the State Department the accurate 
conditions I encounter on the ground in Honduras if I am 
confirmed.
    Mr. Sullivan. Thank you, Senator. I also can commit to 
remaining in touch with the committee in offering a similarly 
honest assessment of the conditions on the ground in Nicaragua.
    Senator Cardin. We ran into this problem under the previous 
administration when we dealt with TIP classifications on the 
TIP Report. It is important that we have unfiltered information 
in order to be able to make our judgments.
    There is another area where we are going to need your help, 
and that is information about individuals who should be 
sanctioned in all three of these countries in regards to human 
rights violations under the newly-passed global Magnitsky law. 
I mention that because in that statute there is a cooperative 
effort between the executive and legislative branches. We have 
a role to play in those sanctions, so we need information, and 
we rely upon those in country to give us that type of 
information.
    Do you commit, all three of you, that you will make 
available to this committee information about human rights 
violators in your country that should be considered for 
Magnitsky-type sanctions?
    Ms. Williams. Yes, Senator, I will commit to do so, if 
confirmed.
    Mr. Palmieri. Absolutely, Senator. You have my full 
commitment.
    Mr. Sullivan. Yes, Senator, I will also. Thank you.
    Senator Cardin. Thank you.
    You all have mentioned the OAS and the role that it plays 
particularly in Honduras with regard to the anti-corruption 
commissions, but it has been disappointing with regard to its 
inability to deal with Venezuela as aggressively as we would 
like them to. Part of it is the Caribbean nation problem, and I 
would welcome Ms. Williams' thoughts on that, particularly the 
Caribbean Basin Security Initiatives.
    I am a supporter of regional organizations. I am the 
ranking Democrat on the Helsinki Commission for the 
Organization for Security and Cooperation in Europe. Senator 
Shaheen serves on that commission as well. So we believe in 
regional organizations.
    One of the challenges of OAS, it has very little 
parliamentary involvement, and therefore it does not have the 
same degree of support that the OSCE has within the Congress 
itself because we are part of the process, we are more involved 
in the process.
    So I would like to know how you all believe our regional 
organizations in that region can be strengthened in order to 
make them more effective in dealing with problems such as 
Venezuela.
    Mr. Sullivan. Senator, just as the outgoing deputy 
representative at the OAS, to the U.S. Mission to the OAS, I 
will be happy to take the first crack at that. I certainly 
agree that the situation in Venezuela has been an enormous 
concern for many reasons, and it has been a very high priority 
for the OAS and for our Mission to the OAS.
    Although there is still much more to do to promote a 
peaceful democratic solution in Venezuela, I think certainly in 
the two years that I served in our Mission we have come a long 
way from the standpoint of initially the OAS was incapable of 
taking any significant action with respect to Venezuela because 
of the strong influence of the Venezuelan Government in the 
hemisphere.
    But over the past two years we have seen the OAS Permanent 
Council pass a series of resolutions condemning human rights 
violations there and also highlighting the inadequate nature of 
the elections that have been held there. In fact, at our last 
general assembly in June, we for the first time passed a 
resolution at that level that called the May 20th elections in 
Venezuela illegitimate, which sent a very strong signal to the 
rest of the hemisphere and the rest of the world about the 
nature of those elections.
    I do agree with your suggestion that stronger parliamentary 
involvement with the OAS would strengthen the political 
statements that it can make and would better reflect the range 
of views around the hemisphere, and I would be happy to discuss 
that further with you, as I am sure would our excellent new 
Ambassador, Carlos Trujillo, to the OAS.
    Senator Cardin. I have talked to him about that.
    Let me just ask, Mr. Palmieri, one question. I talked to 
you in my office. Do you commit to monitor the Berta Caceres 
case to make sure that we get independent evaluations as to the 
fairness of that trial?
    Mr. Palmieri. Yes, sir, and I believe the embassy has 
assisted in that investigation and does plan to attend sessions 
of that training. If confirmed, when I arrive in Honduras, I 
will also personally pay attention to that trial.
    Senator Cardin. Thank you.
    Senator Rubio. Thank you, Senator.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you and congratulations to each of you for being 
willing to accept these nominations at this difficult time in 
the world and given the challenges that you have already 
referenced in the countries that you will be going to, if 
confirmed.
    I want to start, Mr. Sullivan, with Nicaragua, because as I 
read reports, Russian influence in Nicaragua has been 
increasing. They spent $80 million to buy tanks and military 
equipment from Russia in 2016. They have increased their 
cooperation with the military leadership in both countries, and 
unfortunately it is not just Nicaragua, it is also other 
countries in Latin America.
    So what will be your approach, if confirmed, to address 
that growing influence from Russia, and how do you think we 
should be approaching it throughout Latin America?
    Mr. Sullivan. Thank you for your question, Senator. I and 
my colleagues at the State Department are concerned about 
increasing Russian involvement both in Nicaragua and in other 
countries in the hemisphere. We are concerned about what their 
agenda is. We know that in the case of Nicaragua they have been 
involved in supplying military equipment, as you pointed out, 
equipment that may not serve much useful purpose for Nicaragua. 
There are certainly other things that they need more. And we 
are concerned that the Russian Government in that sense has 
become the partner of choice on military and security matters.
    I know that Secretary of Defense Mattis is traveling in the 
region right now, talking with a number of partners in the 
region about why the United States would like to be the partner 
of choice for our allies in the region. We believe that we have 
a lot to offer and can be a much better partner for countries 
like Nicaragua. If confirmed, I would certainly work with 
colleagues in the embassy to discuss with Nicaraguan leaders 
and with the media about what the U.S. has to offer and why 
that might be a better choice for the Nicaraguan people.
    Senator Shaheen. Yesterday we had a hearing in this 
committee on Russia and its influence, and one of the things 
that Assistant Secretary of State Wes Mitchell talked about was 
the strategy that we have to address Russia. Do you know if 
Latin America is included in that Russia strategy? Do any of 
the three of you know that?
    Mr. Palmieri. Yes, Senator, it is an excellent point. We 
work very closely with our colleagues in the European bureau 
and on the Russia desk to ensure that any presence of Russia in 
our hemisphere is addressed consistent with that strategy and 
that we are calling attention to the European bureau when we 
see Russian maneuvers in our area.
    Senator Shaheen. And I assume that is mutual, that they are 
also letting you all know when they pick up any information 
that might affect Latin American countries?
    Mr. Palmieri. Yes. Yes, Senator.
    Senator Shaheen. Thank you.
    I have been working for the last couple of months with a 
family from Honduras who came across illegally because they 
were affected by violence in Honduras. Sadly, the mother's son 
was separated and they did not know where the other was for 
several months.
    What kind of message does that send to our Honduran allies 
when they see what happens to families that are seeking asylum 
from violence?
    Mr. Palmieri. The Honduran Government has approached us on 
multiple different levels here in Washington, in capital. The 
Government has made it very clear that they are concerned that 
family members be reunited. The State Department and I, if 
confirmed as the Ambassador in Honduras, will do all I can to 
help reunite families that have been separated. We have at the 
State Department facilitated meetings between Honduran 
Government officials, as well as Guatemalan and Salvadoran 
officials, with the Department of Homeland Security and Health 
and Human Services to provide information about separated 
families. I accompanied Secretary Nielsen to a meeting in 
Guatemala in the first week of July with foreign ministers and 
security ministers for the region to discuss how we can improve 
information exchange, but how we can also better address the 
underlying conditions so that people do not make that journey 
to our border, that the violence in their countries is being 
addressed, that there is greater economic opportunity there so 
that folks do not put themselves in a position of being 
separated.
    Senator Shaheen. I appreciate that and I thank you for that 
answer. I think this is something that we have all got to 
continue to work on. We have got to make sure that people feel 
like they have a future in their own countries.
    My last question is really for all three of you. New 
Hampshire has, sadly, been dramatically affected by the opioid 
and substance use crisis that we have in this country. Many of 
those opioids and drugs are coming from countries south of our 
border. Even in Suriname, the current president has been 
convicted in the Netherlands of trafficking in drugs.
    So can each of you talk about what you see as your role as 
an ambassador in trying to address this pervasive problem that 
we are facing in the United States? And I will start with you, 
Ms. Williams.
    Ms. Williams. Thank you. It is true. You are correct that 
there was a conviction prior to his presidency of President 
Bouterse in the Netherlands.
    The issue in regards specifically to Suriname is that most 
of the narcotics flow is actually going to Europe, but 
nevertheless some may be coming here to the U.S. as well. One 
of the things that I as Ambassador can do is to maintain that 
issue at the forefront of the agenda with the Bouterse 
Government, with that administration, to continue to work with 
that administration on improving administration of justice, 
rule of law. We are working with them via regional programs, 
from the Caribbean Basin Security Initiative on Evidence-Based 
Decision-Making and training for law enforcement. So I would 
continue all of these things and also keep it at the forefront 
of the diplomatic dialogue.
    Senator Shaheen. Thank you.
    Mr. Palmieri?
    Mr. Palmieri. Senator, if you could indulge a proud son for 
a moment, my mother--this is an issue that has been important 
to our family. My mother was instrumental in establishing one 
of the first Spanish-speaking drug rehabilitation programs in 
the State of Connecticut in the late 1960s and early `70s.
    Senator Shaheen. Thank you.
    Mr. Palmieri. I myself volunteered here in Washington, D.C. 
for a residential drug rehabilitation program on its board in 
the last decade.
    If confirmed as an Ambassador to Honduras, this problem of 
narcotics trafficking and ensuring that we are working with the 
host government to encourage them to do all they can to stop 
drugs that are transiting through Honduras north to our borders 
will be a top priority. It is something that I have personally 
seen and am committed to addressing.
    Senator Shaheen. Thank you very much for that.
    Mr. Sullivan?
    Mr. Sullivan. Senator, in the case of Nicaragua, as you 
know, we have had a challenging relationship with the 
Government for some time, but counter-narcotics is one of the 
areas in which we have been cooperating, and that is because 
particularly the Caribbean coast of Nicaragua is an area where 
narcotics trafficking has taken place. It is part of broader 
patterns in the region. In order to address that, we have 
shared some equipment and training with the Nicaraguan 
Government.
    As I mentioned in my opening statement, I would hope, if 
confirmed as Ambassador, to be able to continue and improve 
that cooperation, bearing in mind the overall evolution of the 
crisis there. And I certainly share your concern about the 
impact of the problem here in the U.S.
    Senator Shaheen. Well, thank you all very much for your 
commitment to addressing that challenge.
    Thank you, Mr. Chairman, for letting me go over my time.
    Senator Rubio. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Sullivan, with more than 450 people left dead and a 
growing body of evidence that Nicaraguan security forces have 
engaged in torture, including torturing a United States 
citizen, there is no space left for ambiguity about the reign 
of violence that Daniel Ortega and Rosario Murillo have 
unleashed against their own population.
    So, if confirmed, what steps will you personally take to 
ensure accountability for human rights abuses in Nicaragua?
    Mr. Sullivan. Thank you for that question, Senator. In my 
previous job in the U.S. Mission to the OAS, I was happy to 
have participated in our efforts to promote resolutions in the 
Permanent Council addressing the situation in Nicaragua, 
including human rights aspects, democratic reform, and I hope 
that that has increased international pressure on the regime, 
which we think is one of the key factors in pushing the 
Nicaraguan Government to, first of all, cease the killing and, 
second of all, address the underlying concerns about democratic 
institutions that brought people into the streets in the first 
place.
    In addition, I have also supported the efforts of the 
Inter-American Human Rights Commission to get on the ground in 
Nicaragua and carry out what I think has been a very successful 
mission in verifying the reports of massive human rights 
violations there. And if confirmed as Ambassador, I would 
certainly continue to work with our colleagues in the U.S. 
Mission to the OAS and provide whatever assistance we can and 
as required to the various human rights commission bodies on 
the ground.
    Senator Menendez. So is it fair to say that you will, if 
confirmed, make this a priority of your ambassadorship?
    Mr. Sullivan. Absolutely, Senator.
    Senator Menendez. Now, let me ask you, Trudeau's Government 
and the European Union have both imposed targeted sanctions 
similar to global Magnitsky. Will you work with our allies to 
ensure they join us in deploying this powerful tool, 
particularly as it relates to the other embassies you will find 
yourself on the ground with?
    Mr. Sullivan. Yes, Senator.
    Senator Menendez. Okay. Have you had an opportunity to look 
at Senator Rubio's and my legislation, the Nicaragua Human 
Rights and Anti-Corruption Act, by any chance?
    Mr. Sullivan. Yes, I have seen it, Senator.
    Senator Menendez. And do you find elements of that--I know 
you cannot speak for the Department as a whole, I do not expect 
you to, but do you believe that additional sanctions here could 
affect the course of the Nicaraguan Government's actions moving 
forward?
    Mr. Sullivan. Senator, as you know, I am not in a position 
to comment on the legislation, per se, on behalf of the 
Department, but I can say, first of all, that if confirmed I 
would be happy to continue working with the committee and 
discussing the application of sanctions on Nicaragua. Sanctions 
play an essential part in demonstrating our seriousness about 
our concerns on human rights issues, and I am pleased that we 
have been able to, using existing authorities, apply a large 
number of sanctions, both visa sanctions and global Magnitsky, 
and I know that additional sanctions are under consideration. 
So I would be happy to continue working with the committee on 
that.
    Senator Menendez. All right, fair enough.
    Now, let me ask you this. I get increasingly concerned 
that--let me piggyback off of Senator Shaheen's comments about 
Russia's engagement here with Nicaragua. According to various 
reports, including from the Washington Post, Russia has 
established a new counter-narcotics facility in Managua, has 
opened a new satellite facility, and is alleged to be tampering 
with telecommunications infrastructure. I would expect that 
that will be one of your focuses of attention if you are 
confirmed?
    Mr. Sullivan. Yes, it will, Senator. As you know, we share 
your concern about those developments.
    Senator Menendez. Now, to date, the Nicaraguan military at 
an institutional level has refused to participate in Ortega's 
Government's campaign of violence against its own citizens, 
which is a good thing. However, they have also failed to defend 
their own population against the repression carried out by 
Nicaraguan police and a growing number of paramilitary actors.
    What is your assessment of the role of the Nicaraguan 
military to date, and how would you direct our embassy, 
particularly our defense attache, to engage with Nicaragua's 
military?
    Mr. Sullivan. Thanks for that question, Senator. It is 
clear that the Nicaraguan military remains an important player 
in this situation. It has been encouraging that they have not 
participated actively in the repression that has gone on, but 
certainly it was striking that even when armed bands were 
traveling around the country in pickup trucks committing 
terrible acts of violence, they did not interfere with that. 
Normally, Nicaragua has had a better handle on its own domestic 
security than some other countries in the region. So clearly 
there is a role for them to play, and it will be important to 
remain engaged with them.
    We understand that many members of the Nicaraguan military 
value relationships that they have had for many years with 
their American colleagues, and I hope that those will pay 
dividends.
    Senator Menendez. The last question for you. There is 
widespread evidence that Ortega, his family, and his political 
allies have plundered Nicaragua state coffers and have 
personally profited from the Albanista accounts funded by the 
Venezuelan Government. One only needs to look at the extensive 
properties amassed in Costa Rica and Spain by Roberta Rivas, 
the president of the Nicaraguan Electoral Tribunal and an 
individual sanctioned under the global Magnitsky Act.
    If confirmed, will you work to address officials in the 
Ortega Government profiting off funds stolen from Nicaraguan 
citizens?
    Mr. Sullivan. Yes, Senator.
    Senator Menendez. Okay.
    And finally, Mr. Palmieri, I do not want you to feel 
neglected.
    (Laughter.)
    Senator Menendez. Or Ms. Williams, but particularly Mr. 
Palmieri, for whom we have a history.
    First, this is going to be your first ambassadorial 
appointment, right?
    Mr. Palmieri. Yes, it is.
    Senator Menendez. Well, I am glad the State Department is 
finally diversifying.
    (Laughter.)
    Senator Menendez. I am seriously concerned about Honduras 
in two ways--well, in many ways, but let me just focus on two. 
When it comes to strengthening democratic institutions, I 
appreciated some of what Honduras' president has done. By the 
same token, I am worried about other elements of it. And 
secondly, the end of TPS for Hondurans is going to be a huge 
challenge if, in fact, that ends up being the last chapter of 
that issue. So we are going to have a lot of people who are 
going to get repatriated to Honduras who have U.S. families.
    So I want to hear how you will approach, if confirmed, 
those two issues, strengthening institutions, especially in a 
country that has a long history here, notwithstanding that we 
like its president doing certain things, cooperating with us, 
but by the same token not being as forceful as I would like to 
see on strengthening institutions; and secondly, how you will 
deal with, if that is the last chapter, the repatriation of 
Hondurans, including U.S. families, to be able to help in that 
regard and work with them. Give me a sense of that.
    Mr. Palmieri. Thank you for those questions, Senator.
    On the first question, the U.S. Congress and American 
taxpayers have been very generous with foreign assistance in 
Honduras. We need to make sure those funds are being used 
effectively, that we are getting the results and the impact on 
those institutions. We have seen some improvements. The 
homicide rate has dropped 50 percent in Honduras since 2011, 
but the police force needs further reforms to become a more 
effective, responsive, community-oriented policing force, as an 
example.
    With respect to the American citizen family members that 
may return with TPS beneficiaries who return to Honduras, as 
the U.S. Ambassador, if confirmed, it will be among my most 
important priorities, the top priority, to assist American 
citizens to ensure that each and every one of them has the 
American citizen documentation that they will need on return to 
the country and for the future; and then second, to advocate on 
their behalf to Honduran Government institutions to ensure that 
they have educational opportunities, access to health care 
where appropriate, and I believe our embassy will need to be 
prepared to assist those Americans as best we can. Thank you.
    Senator Menendez. I appreciate that. I just hope we can end 
that chapter in a different way than it is right now.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Markey, are you ready?
    Senator Markey. Ready to go. Thank you, Mr. Chairman.
    I went down to Honduras in 1983, 1985, and it is clear that 
there is now a deep-seated problem down there, and that the 
U.S. historically has played a role in this condition that has 
been created.
    So, Mr. Palmieri, do you think the United States should 
continue to train, equip, and fund Honduran security forces 
that kill peaceful protesters and bystanders with impunity? 
What should the role of the United States be?
    Mr. Palmieri. Thank you for that question, Senator. It is a 
very important issue, the issue of human rights abuses in 
Honduras, and in Venezuela, obviously. But our assistance, 
first and foremost, is carefully vetted so that it never goes 
to those individuals or units that have been involved in any 
gross violations of human rights.
    Second, I do believe U.S. assistance can help 
professionalize and improve the capability of the Honduran 
police forces to be a more responsive community-based police 
force that is reducing the level of violence and threat that 
Honduran citizens feel.
    Senator Markey. Well, it is one of the worst countries in 
the world when it comes to violent crime. It is rampant, and it 
affects the most vulnerable groups who need their rights to be 
protected, and yet we continue to send our funding down there 
into the country. So in your opinion, what steps should the 
United States take in order to ensure that there is a prompt 
removal of Honduran military from domestic policymaking? 
Otherwise there is just going to be a repetition over and over 
again of the very same situation, because right now it looks a 
lot like it did back in the 80s. Unless we do something 
different, then we just should not expect anything to change. 
So what is your recommendation?
    Mr. Palmieri. Thank you for the important observation. The 
U.S. assistance currently does not go to any Honduran military 
unit engaged in civilian policing. I think we will maintain 
that posture. In addition, I think we need to work with the 
Honduran Government so that it can execute and implement its 
own plan to continue its reform of the Honduran national police 
so that it can assume the policing function and then have 
clear, established benchmarks and off-ramps so that Honduran 
military units that are involved in civilian policing can be 
withdrawn from that activity.
    Senator Markey. No, I understand what you are saying, but 
at the same time we are not doing enough, by far. I was down on 
the Mexican-Texas border talking to women especially fleeing 
from Honduras, and in each instance there was a conversation 
about the military or the police and why they felt they had to 
escape from that country, and yet at our borders we have an 
administration which is saying, well, we do not want them, they 
are the worst, they are the most terrible people who are coming 
here. That is not what I saw. I saw people who were fleeing, 
who were fleeing conditions that were absolutely inhumane, not 
just poverty but injustice, crime, threats of violence to them 
and their children, in some instances even talking about how 
they were fleeing the military who wanted to compromise the 
woman's children's own well-being.
    So this is an integrated conversation that gets simplified 
by President Trump in terms of who they are coming to our 
border, not wanting to even give them asylum hearings. But much 
of it is funded by U.S. dollars going down into this country 
still without the proper strings attached to ensure that our 
values are brought to the military in this country. 
Unfortunately, from my perspective, we are going to see more 
and more coming to our border, but we are implicated. We are 
part of it. Our funding streams are helping those who, to a 
very large extent, are creating this problem.
    If I can just move quickly to this recognition of Taiwan in 
Honduras and Nicaragua, country after country is switching 
sides and undermining U.S. policy and our recognition of 
Taiwan. So I would like you briefly, if you could, to speak 
about it; and you too, Mr. Sullivan.
    Mr. Palmieri. We are reviewing our relationship with El 
Salvador following this decision. Although we recognize the 
right of a country to determine its diplomatic relations, we 
are deeply disappointed by the decision. China's efforts to 
unilaterally alter the status quo are harmful and do not 
contribute to stability. Rather, they undermine the framework 
that enables peace, stability, and development for decades in 
that part of the world.
    Taiwan is a democratic success, a reliable partner, and the 
United States will continue to support Taiwan.
    Senator Markey. Can you talk a little bit, Mr. Sullivan, 
about this coercion that is taking place in country after 
country and what you feel the U.S. position on it should be? 
What can we do?
    Mr. Sullivan. Yes, Senator. Thank you. First of all, I 
fully share the thoughts that my colleague, Paco Palmieri, just 
shared in terms of the overall Chinese push and the importance 
of not making changes in relationships with Taiwan at this time 
given the tensions that do exist in that part of the world.
    If confirmed, in the case of Nicaragua, I would certainly 
make that case to the Nicaraguan Government and urge them to 
retain their existing relationship with Taiwan.
    Senator Markey. Yes, and I think that is going to be very 
important. Salvador is gone now, and you can feel this domino 
effect in this region taking hold. So again, we have a lot of 
leverage, and we have to exercise it, especially this military 
aid which we provide in Honduras, so that we can create some 
kind of wall against further incursion by the Chinese. I think 
it is absolutely critical.
    Thank you, Mr. Chairman, for having the hearing.
    Senator Rubio. And thank you for focusing on that issue. 
Senator Gardner was here earlier as well, and he referenced 
that in his comments before he had to leave.
    It is an unusual hearing because while you are nominated 
for new posts, both Mr. Palmieri and Mr. Sullivan are either 
currently or just recently in posts of great regional 
importance and I think will give us insight into your service 
as well in these new posts. So I wanted to just begin on the El 
Salvador question.
    Mr. Palmieri, it is your understanding that the U.S. 
Government worked hard and made very clear to El Salvador that 
we did not want them to switch recognition from Taiwan, but 
they did so anyway. I have confirmed that independently, but 
that would be your understanding as well?
    Mr. Palmieri. Yes, Senator.
    Senator Rubio. They knew how we felt about it, and they did 
it anyway.
    Mr. Palmieri. Absolutely, Senator.
    Senator Rubio. And the second thing I want to clear up, 
because Senator Markey asked this question, you have been the 
Assistant Secretary for Western Hemisphere, the Alliance for 
Prosperity, assistance to Honduras is a big part of that 
portfolio, and he was describing the situation in which 
government forces, both police and army, are currently involved 
in widespread abuses against the population of Honduras. In 
your time there, I am not saying have there been any abuses. I 
mean, there is no country in the world in which police forces 
have not stepped outside the line, and hopefully they have a 
criminal justice system to address it. But in the time since 
the Alliance for Prosperity has been functioning, have you seen 
widespread evidence of police and/or government forces 
conducting widespread abuses of the population?
    Mr. Palmieri. There were reports of security forces that 
were involved in human rights violations in the wake of the 
November 2017 elections. That is an area where a national 
dialogue has been proposed in Honduras to address those 
specific incidents. So that is an area that, if confirmed, an 
area of human rights concerns that I would be engaged in; yes, 
sir.
    Senator Rubio. He described also speaking to some in the 
migratory pattern and them citing examples of these abuses as 
reasons why they were coming. Have you seen evidence that the 
migratory crisis has in some way--some of the migrants are 
coming to get away from government abuses? Because what we have 
heard mostly is that it has to do with the criminal gangs that 
act with impunity in areas in which there is no police and/or 
government presence, or not a sufficient amount, and our 
program is designed to build their capacity to address it. But 
have you seen widespread evidence that some of the migratory 
pressures being created on the U.S. is being driven by 
government abuses?
    Mr. Palmieri. Senator, I think you are correct in pointing 
out that it is not widespread government abuses that are 
driving the migratory process but the endemic violence caused 
by these gangs. Yes, sir.
    Senator Rubio. Both you, Mr. Palmieri, and you, Mr. 
Sullivan, as I said, have a broad view of the region, and I tie 
this in to both of your potential posts here in a second, but 
we never talk enough about the Western Hemisphere with regard 
to the national security interests of the United States and the 
region, and in particular the role that stability plays in 
that.
    I would ask both of you, is it your opinion that the 
migratory situation that has been created by Venezuela, the 
pressures it is now putting on Brazil, which has deployed 
troops to the border to quell what sounds like individuals 
going into a camp or village and attacking people in response 
to something else that had happened allegedly by one of the 
Venezuelan migrants, in Ecuador, that now faces a significant 
government shortfall, a government, by the way, that has been 
much friendlier to the United States than the previous 
government in Ecuador and more cooperative, which is a positive 
result, but they now face a massive budget shortfall partially 
driven by the fact that close to 600,000 Venezuelan migrants 
have been driven there; the situation in Colombia, which 
continues to absorb a large number of migrants.
    As Senator Cardin pointed out to me up here at the dais 
before we began our hearing, the numbers in Venezuela, the 
migratory pressures now are approximating and perhaps even 
surpassing what we saw in Syria. Has the catastrophe of Maduro 
and his regime and the migratory situation it has created on 
its neighbors--is it your opinion it is undermining regional 
security and those of our allies and partners in the region?
    Mr. Palmieri. Yes, Senator. The migratory flows out of 
Venezuela due to the man-made disaster caused by President 
Maduro's rule is a growing problem throughout the hemisphere. 
It is creating enormous pressures in Colombia. As you just 
noted, we have seen the reaction now in northern Brazil to a 
relatively small number when you compare it to Colombia's more 
than 1.5 million migrants. It is the, I think, number-one 
problem that we need to be engaged with in this hemisphere in 
the months ahead.
    Senator Rubio. And the reason I ask is because the 
situation in Venezuela is no longer simply about the loss of 
democracy and human rights violations. It is a significant 
destabilizing influence on the region, undermining our regional 
allies, particularly in Colombia. Regional stability is in the 
national security interest of the United States, is it not?
    Mr. Palmieri. Yes, sir, it completely is.
    Senator Rubio. And so as this further destabilizes the 
region, it further threatens the national security of the 
United States.
    Mr. Palmieri. Yes, sir.
    Senator Rubio. And you would agree with that assessment, 
Mr. Sullivan?
    Mr. Sullivan. Yes, absolutely, Senator.
    Senator Rubio. And let me ask you similarly in Nicaragua, 
which certainly has not been a democracy in any sense for a 
long period of time. The one thing it was, it was not a transit 
point for drugs the way we have seen in some of the other 
countries in Central America. Would any further chaos in 
Nicaragua that undermines that and opens up now in Nicaragua a 
new route by which drugs could enter the United States, that 
would pose a national security risk to the United States, would 
it not?
    Mr. Sullivan. Yes, Senator.
    Senator Rubio. And if, in fact, the situation in Nicaragua 
begins to appear more and more like Venezuela, creating a 
Nicaraguan migratory pressure on Costa Rica, which is also 
facing its own set of challenges with drug transit, and other 
neighbors, migratory pressures on Guatemala, Honduras, El 
Salvador, and Costa Rica would be deeply destabilizing to these 
countries, would it not?
    Mr. Sullivan. Yes, Senator. I agree.
    Senator Rubio. Creating the potential that that too would 
be a risk and a threat to the national security of the United 
States.
    If, for example, let's say a Russian long-range bomber were 
to make a visit to Venezuela at some point in the near future, 
what would that tell us about Russian engagement and influence 
in the region and Venezuela's willingness to be a host for 
their engagement?
    Mr. Palmieri. It would be a very disturbing signal to have 
a Russian bomber visit a country that is so unstable right now, 
as is Venezuela, sir.
    Senator Rubio. What about this? What if the Russian 
Federation were to make a $200 or $300 million loan to help 
bail out the Nicaraguan Government for the situations that they 
are facing now? Mr. Sullivan, that would not be something they 
would do out of the kindness of their heart. They would want 
something in return, right?
    Mr. Sullivan. I agree, Senator. The Russians have their 
agenda.
    Senator Rubio. And their agenda would potentially be not 
just greater influence in Nicaragua but the potential for, at a 
minimum, some rotational military presence in the country of 
Nicaragua?
    Mr. Sullivan. Yes, Senator.
    Senator Rubio. And if that were the case, if somehow the 
Russian Federation under Vladimir Putin were to establish 
either a permanent or a rotational military presence in the 
Western Hemisphere, be it Nicaragua or Venezuela, that would 
certainly create a national security threat to the United 
States, would it not?
    Mr. Palmieri. Yes, sir. There is no benign influence that 
Russia could play in our hemisphere.
    Senator Rubio. And as far as Nicaragua, a Russian military 
base in Nicaragua of any capacity would be a national security 
threat to the United States.
    Mr. Sullivan. Yes, Senator. I know we are already paying 
very close attention to the Russian activity that is already 
taking place there, and that would be a further concern.
    Senator Rubio. And on this issue of China, we talked about 
the recognition of China and away from Taiwan by El Salvador. 
That follows on the heels of the Dominican Republic a few 
months ago, and Panama before that, and there are a series of 
other countries now. One of the ones that is rumored is 
Honduras, that Honduras could be next.
    If confirmed, Mr. Palmieri, would you commit to this 
committee that one of your first acts would be to clearly 
communicate to the Honduran Government that de-recognition of 
Taiwan and recognition of China would harm the relationship 
with the United States?
    Mr. Palmieri. Yes, Senator. I commit to making that a top 
priority, if confirmed, upon my immediate arrival, and to 
report back to you what I hear.
    Senator Rubio. Mr. Sullivan, on Nicaragua, one of the 
things that we have seen Maduro do for some period of time is--
and you saw this firsthand from your perch at the OAS--is he 
used negotiations as a ploy to buy time. What he hoped to do, 
first with the Vatican-sponsored one, and then later with the 
one with the Dominican Republic, was to create this perception 
that there are talks going on, let's let the talks work 
through. But in reality they turned out to be nothing but delay 
tactics to buy him time to further stabilize his grip. Is that 
also not a risk in Nicaragua already?
    Mr. Sullivan. Yes, Senator, it is. I think we have already 
seen in the national dialogue a lot of this occur already, a 
lack of the kind of good faith that would be needed to get to a 
good result.
    Senator Rubio. And so I would hope that there could be some 
dialogue that leads to a positive outcome. I think, of course, 
that has been made very difficult by the fact that Ortega and 
Murillo now have their hands covered in blood, but we would 
still love to see a resolution of that situation that is 
peaceful and democratic. But we need to be very cautious about 
it because the reality of it is that regimes such as these 
habitually and routinely use negotiations, which civilized 
people are in favor of, as a way to buy time to further their 
grip on power.
    Is that something that you will commit to being wary and 
cognizant of in your role there?
    Mr. Sullivan. Yes, very much, Senator.
    Senator Rubio. Mr. Palmieri, on the issue of migration, I 
think we are all troubled by images at the border and some of 
the things that it has brought about and the problems that we 
have seen. I made the comment earlier, and I think almost 
everyone would share it, that the most effective thing we can 
do is to take away the reasons why people are leaving these 
countries in the first place. I have made the argument--and, as 
an example, I read an account recently of a young woman who 
came to the United States because I believe her sons had been 
abducted, her husband had been killed because they refused to 
pay protection money to a criminal gang. Someone facing those 
sorts of threats is going to flee.
    That does not mean we should not have immigration laws. 
That does not mean we should not have border security. But the 
reality of it is, when someone is leaving that, when your 
children have been abducted and potentially killed and your 
husband has been killed under threat by a criminal gang that if 
you do not pay them protection money they are going to do these 
things to you, and then they do it, almost nothing will stop 
someone from fleeing that.
    And therefore, one of the most effective things that we can 
do to limit migratory pressure is to eliminate the causes of 
that migratory pressure. In the case of Honduras, the number-
one driver of migratory pressure from Honduras to the United 
States, coming unlawfully, is criminality on the part of these 
gangs and drug trafficking organizations and mafias, and the 
best thing we can do is to help the Honduran Government create 
the capacity to confront and defeat them both through law 
enforcement and through judicial systems. Is that your 
assessment?
    Mr. Palmieri. I share that assessment completely, Senator, 
yes.
    Senator Rubio. And so when we engage in these endeavors to 
provide aid and assistance, it is not charity. It is in the 
national security and national interest of the United States to 
help nations build capacity to prevent these things from 
happening.
    Mr. Palmieri. Yes, sir.
    Senator Rubio. As far as you know, by the way, there is no 
migratory pressure from Costa Rica, right?
    Mr. Palmieri. Not that I am aware of.
    Senator Rubio. Or Panama?
    Mr. Palmieri. Or Panama.
    Senator Rubio. Or Paraguay, or Chile, or Argentina, or 
Colombia, or other countries that do not face this challenge at 
this point.
    I am not ignoring Suriname. I have my questions here.
    (Laughter.)
    Senator Rubio. And they will be my final ones.
    Let me start with this, and I think this was raised 
earlier. It is concerning that the president of Suriname's son 
was sentenced in New York to just over 16 years in prison on 
drug trafficking and weapons charges and, most troubling, for 
agreeing to allow Hezbollah to establish a base in Suriname in 
exchange for $2 million. The money was not paid since it was 
part of an undercover sting operation with U.S. agents. It was 
not actually a Hezbollah operative. But nonetheless, the 
willingness to do so was frightening.
    In July of 2017, two brothers and Dutch nationals were 
arrested for suspicion of involvement in terrorist activities 
in Paramaribo. The brothers allegedly had been recruiting in 
Suriname for ISIS.
    Let me just begin. Is it your view, Ms. Williams, that 
Hezbollah has a presence in Suriname?
    Ms. Williams. Thank you for the question, Senator. From 
what I have learned, the answer to that question is no, that 
there is not a presence in spite of those activities by the 
president's son. There does not at this time appear to be a 
major issue in that arena in the country.
    However, it is an issue on which, as we must be everywhere 
in the world, vigilant at all times and to be looking for what 
may transpire for the future, and to ensure that as there are 
people who leave the war zones from ISIS fighters, et cetera, 
that they are not coming into the nations in which we are 
serving.
    Senator Rubio. If I can ask, are you aware of the status--I 
do not know offhand the status of the case of the two brothers, 
the Dutch nationals?
    Ms. Williams. I know they were arrested. I know it is in 
the legal processes in Suriname, but further than that I do not 
know.
    Senator Rubio. On our relationship with them, as you said, 
we do not speak a lot about it. They do not have huge problems. 
They do not have some of these situations that we are seeing in 
these other parts of the world. So, first of all, 
congratulations on picking a pretty good spot. But that said, 
we do have some bilateral issues. They have been very 
reluctant, Suriname has, to support strong action against 
Venezuela at the OAS. In June of this year, they were one of 
the seven CARICOM nations that abstained on a resolution that 
was meant to be an initial step that could potentially lead to 
Venezuela's suspension. I imagine abstention is better than 
supporting Venezuela. Some still do.
    Why is it that Suriname continues to at least not fully 
support what has become sort of a regional consensus in 
condemning the Maduro regime?
    Ms. Williams. Thank you for the question, sir. It is an 
historical affinity. It has been an ideological affinity going 
back many years. Even though it may not seem to be, the 
abstention is a move forward versus the outright no votes that 
have occurred in the past. President Bouterse is very close 
with the Venezuelan Government, and much of the administration 
in Suriname has been very close for many years with the 
nonaligned movement. So it is something that goes back quite a 
long time.
    Senator Rubio. When you say ``close to,'' does that mean 
they received funds from Petrocaribe and initiatives such as 
that?
    Ms. Williams. They have in the past, but they have not I 
think in the last three or four years, have not received 
anything through Petrocaribe.
    Senator Rubio. My final question is that we have limited 
partnerships with the Government of Suriname, including one on 
HIV/AIDS reduction through PEPFAR, which is a program that 
continues to receive strong bipartisan support, and I would 
daresay deserves even more support. They have also an 
initiative through the Caribbean Basin Security Initiative. But 
there is still a lot of room to expand that relationship.
    Have you thought of or identified areas that we could 
potentially expand cooperation with Suriname? And if you have, 
what are the obstacles to doing so?
    Ms. Williams. Senator, thank you. Of course, one of the 
obstacles always is not just what capacity we have to bring to 
bear against an issue, but also the capacity of the host 
nation, and it is a very small nation, roughly 600,000 people.
    One of the areas that I would like to work very closely 
with them on, if confirmed, is in the arena of trafficking in 
persons. There are some things that they could do that are not 
necessarily cost intensive, such as putting together a national 
action plan that would, if not move them off of the Tier 2 
Watch List, at least ensure that they have more possibility of 
a waiver.
    There are also, I think, other cooperative things that we 
could do, just taking advantage of the regional programs that 
exist in terms of the evidence-based decision-making in the 
legal regimes in the administration of Justice.
    Also, with elections coming up in 2020 for the Government 
of Suriname, there are opportunities there I think for us to be 
a strong voice for democratic processes for peaceful, free, and 
fair elections. That is something that I would like to, if 
confirmed, array some effort.
    Senator Rubio. That was supposed to be my final question, 
but I forgot to ask one more, Mr. Palmieri, and it is really 
more of a suggestion, to explore your openness to it. As I 
said, I continue to be a supporter of the Alliance for 
Prosperity and always look for ways to tailor it to the new 
threats.
    There is a growing body of evidence that these drug 
trafficking networks that bring fentanyl and its precursors 
from China and then traffic it into the United States through 
Mexico are increasingly, because of Mexican Government pressure 
against them, increasingly relying on trafficking networks in 
Guatemala and in Honduras, and I am not sure that the current 
status of the Alliance for Prosperity, which is largely geared 
towards cocaine trafficking and the like, has fully stood up to 
confront this new threat.
    I would both want to hear your comments on and perhaps your 
openness to committing to working on an adjustment to the 
Alliance for Prosperity, particularly with regards to Honduras, 
to help them with two things: first, to sort of identify and 
intercept and stop the fentanyl trafficking that might be using 
their networks to traffic it into the United States, 
subsequently through Mexico; and second, potentially providing 
them like an incinerator, which Guatemala has, although my 
understanding is it is not exactly working. We need to make 
that work again. The incinerator is used to destroy the 
precursor chemicals that are used to create some of this.
    Is that an issue you have come across in your time at the 
desk in the Western Hemisphere, and is that the sort of 
adjustment that we should be constantly looking for in our 
Alliance assistance?
    Mr. Palmieri. Thank you, Senator. That is exactly the kind 
of adaptive flexibility we should have in our own programs 
because we know these criminal organizations are constantly 
adapting and looking for new routes and new ways. I would 
welcome the opportunity, if confirmed, and in Honduras to work 
closely with you and the committee to ensure that we are 
helping the Hondurans attack those networks wherever they may 
be coming from to prevent the transshipment of fentanyl. And, 
yes, we have heard that as Mexico has made fentanyl a priority, 
that they are beginning to look for other routes throughout our 
hemisphere to get fentanyl to the United States.
    Senator Rubio. And Senator Cardin has one final question.
    I just want to leave one more thing on the record here, and 
I continue to say it to my colleagues. I am in favor of 
stronger border security. I am in favor of more personnel. I 
believe we have to have immigration laws, and they need to be 
enforced. And I also believe that things like the Alliance for 
Prosperity are in some ways, in many ways, about border 
security by preventing the crisis to begin with.
    I just hope that in your time there, if confirmed, that you 
will be and continue to be a strong advocate for how important 
that program is, because there is a view among some that this 
is a charity program. It is in the national security interest 
of the United States to address these issues, and if we can 
address it in Honduras--Guatemala too, but in Honduras, we have 
to spend less time and less effort on the back end to address 
it.
    So that is why I think this sort of assistance is important 
for us to say at every forum. It is not charity. It is in our 
interest, and it is actually more cost-effective if it is being 
done appropriately.
    Senator Cardin. Ms. Williams, I want to ask you about the 
Caribbean nations generally. Suriname obviously is a country 
that is not as well-known as Nicaragua or Honduras. We have 
seen a concern, an attempt made, perhaps by Hezbollah, as the 
Chairman pointed out, to get influence in Suriname. So as we 
look at Russia's engagement in our hemisphere, there are other 
characters that want to get involved that are not in our 
interest.
    We know the number of states and their impact on the OAS 
policies and on the United Nations, the number of votes that 
they have. These are all small nations in which it does not 
take a lot of contact to have impact in those countries, 
whether it is financial or just giving them more attention.
    So I guess my point is there are those of us who believe 
that the United States may not be giving enough attention to 
the Caribbean states, that the Caribbean Basin Security 
Initiative may be a forum for greater impact. But what is your 
view as to how the United States can have stronger allies in 
the Caribbean, among Caribbean states?
    Ms. Williams. Thank you for that question, Senator. I will 
harken back to my days a decade back working in Caribbean 
Affairs and working on the U.S.-Caribbean CARICOM Summit when 
we brought all the nations of the CARICOM members up to the 
United States and met with them at the presidential level.
    Engagement is one of the most important things you can do 
with the Caribbean. It is not necessarily--although they would 
always welcome additional and higher levels of assistance, 
presence is relevance--being there, talking with them, engaging 
with them, exerting our diplomatic tools in terms of explaining 
our positions, trying to keep that dialogue going, and treating 
the Caribbean, as they are, as partners and not as our 
backyard, so to speak, as has been the term in the past.
    These are nations with long histories, with very proud 
traditions, and when we work with one another from that common 
standpoint and are able to engage continually with them, I 
think that actually carries us a great way.
    Mr. Palmieri. Senator, if I could just add that in the wake 
of the Summit of the Americas, as we were gearing up for 
important votes on Nicaragua and Venezuela at the OAS, we did 
reach out. But Senator Rubio made a very important visit to the 
Bahamas where we had not had a CODEL in a long time, and we had 
feedback again that that kind of engagement, not just by our 
ambassadors and executive branch but by the Congress also, 
makes a huge impact, and we will welcome in the Western 
Hemisphere bureau attention and a presence by members of the 
committee in the region. It really does make a difference, 
Senator.
    Senator Cardin. I agree with that.
    Senator Rubio. I just want to be clear: I was in a suit and 
tie. I did not wear shorts and I was not on vacation.
    (Laughter.)
    Senator Rubio. It was a work visit.
    Senator Cardin. You know, the Russians have the photos. Do 
not worry about a thing.
    (Laughter.)
    Senator Cardin. I do not want to get off topic here, but at 
the Climate Summit in Paris I headed a delegation, and we met 
with the Island states, including Caribbean nations, and it was 
an incredibly important meeting to give them the access to U.S. 
senators. So I agree with you. I think giving attention--the 
point is we need a road map here. There are votes that are 
taking place in the United Nations, there are votes that are 
taking place in the OAS where we are not getting the type of 
support that you would normally think from close neighbors. So 
paying attention is very important.
    Also, I would add that the amount of assistance that they 
need is relatively small and can be a major advantage to 
security in our region. So things that the Congress should 
consider, the administration could, but we need cheerleaders in 
the region, and that comes from our Missions. So, Ms. Williams, 
we are going to be looking to you to give us the way that we 
can make your job a little bit easier to advance American 
national security.
    To all three of you, again, thank you for being here and 
for your service to our country.
    Senator Rubio. Just before we wrap up, to build on what you 
just said, one of the toughest things to do is to visit a 
country like the Bahamas, which I believe has not had a U.S. 
Ambassador in seven years, nine years--seven years. It is 
embarrassing. You know, we spend a lot of time thinking about 
it on our end, but for a country like that, it is almost like 
the ultimate sign of disrespect.
    So we view this calendar, and I think just today Jamaica 
was on the agenda. We have all these sorts of ambassadors 
stacked up. As we get consumed in our domestic politics and the 
back and forth, these things have real implications.
    One of the key things that we have to make happen--and that 
includes hopefully your nominations--is to get them on the 
calendar and get them confirmed, because the lack of 
confirmation--and I would say some of them have been slow to 
appoint, too, by the way. So I want to be fair. But the lack of 
confirmation actually has a foreign policy consequence for the 
United States. So that is why it is critical that we get 
through some of those, especially in the Caribbean region, 
because the Bahamas is seven years without a U.S. Ambassador, 
and that predates this administration, which means it was 
obviously some lack of cooperation from the other side here in 
the Senate. So for whatever reason, we have to get to it.
    Senator Cardin. And I would also add that I think it is 
important that we send to some of these countries the same 
proportion of career diplomats. I think that also says that we 
take the position as being important by sending a career 
diplomat. So I think in regards to Suriname it was the right 
message, and I agree with Chairman Rubio that we need to have 
confirmed ambassadors in these positions.
    Quite frankly, Congress has acted, the Senate has acted 
rather quickly on most of these nominations. It has been 
getting through the vetting process within the administration, 
et cetera, which predates this administration. We still have 
had problems in getting these nominations to us.
    Senator Rubio. Blame all around. I only say that for my 
colleagues and the general public, who sometimes think the 
Ambassador to some smaller country--it has real repercussions. 
It reflects poorly on us and makes it difficult to do 
ultimately what you are saying. So we all have to do better.
    With that, I thank you again, all three, for being here.
    As I have said before, the record will remain open until 
the close of business this Friday.
    And, without objection, the hearing is adjourned.


    [Whereupon, at 11:45 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
               Karen Williams by Senator Robert Menendez

    Question 1. If confirmed, how will you work to ensure that U.S. 
counter-narcotics goals are met in Suriname?

    Answer. If confirmed, I am committed to strengthening our 
partnerships with Suriname and the region to combat narcotics 
trafficking.
    Our regional cooperation with Caribbean countries on anti-drug 
trafficking efforts is strong. The United States supports a wide range 
of efforts designed to reduce illicit drug trafficking through the 
Caribbean Basin Security Initiative (CBSI). CBSI support to the region 
includes training, equipment, and logistical assistance for 
interdiction of narcotics and enhancing maritime law enforcement 
capabilities. Our Drug Enforcement Administration, Department of 
Homeland Security, and U.S. Coast Guard work effectively on joint 
operations and information gathering to detect and dismantle drug 
trafficking organizations. The U.S. Government provides training to 
Surinamese law enforcement personnel on topics such as 
counternarcotics, anti-money laundering, correctional management, and 
small arms trafficking.

    Question 2. If confirmed, how will you advocate for countries like 
Suriname to support efforts to address Venezuela's political, economic, 
and humanitarian crisis?

    Answer. If confirmed, I will urge Suriname to join the Western 
Hemisphere's emerging diplomatic consensus against the Maduro regime 
and in support of policies that will enable Venezuelans to forge the 
peaceful, democratic, and prosperous future for themselves they 
deserve. I will encourage Suriname to coordinate with the international 
community to hold regime officials accountable for their actions, 
including supporting efforts at the Organization of American States, 
and to press the Maduro regime to accept humanitarian assistance.

    Question 3. If confirmed, how will you work to increase awareness 
about child labor, as well as women and children subjected to sex 
trafficking, which are the main reasons for Suriname's ranking in the 
TIP report?

    Answer. If confirmed, I will urge Suriname to vigorously 
investigate and prosecute trafficking offenses and convict and punish 
traffickers with sufficiently stringent sentences; increase efforts to 
identify victims, including forced labor victims in the interior; and 
develop and implement formal procedures to refer identified victims for 
care.
    If confirmed, I would recommend the Government hold public 
officials complicit in human trafficking criminally accountable and 
conduct targeted labor inspections in risk-prone areas, such as the 
interior of the country. I would also advocate that Suriname increase 
the compulsory education age to at least 14, which could help reduce 
the incidence of child labor. Suriname should develop social programs 
to prevent and eradicate child labor in agriculture and mining and to 
improve secondary school attendance, particularly in the interior. 
Additional recommendations are to provide further training to law 
enforcement, immigration, health care, labor, and judicial officials to 
better identify and protect victims. I would urge Suriname to provide 
reintegration support for all trafficking victims and offer specialized 
processes for assisting foreign victims.
    Finally, if confirmed, I would also press for the creation of a 
formal mechanism to refer victims of child labor, forced labor, and 
human trafficking identified by labor or criminal law enforcement 
authorities to the appropriate social services. I will also advocate 
for three low-cost measures Suriname could implement in short order: 1) 
increasing collaboration with and support of local civil society 2) 
developing a National Action Plan on the elimination of child labor, 
and 3) completing and implementing a national anti-trafficking action 
plan.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As a long-time Public Diplomacy Officer, I implemented and 
administered a large number of programs that sought to build democratic 
institutions, support freedom of the press, and promote defense of 
human rights. These programs and activities ran the gamut from 
administration of justice/rule of law to election monitoring to civil 
liberties awareness trainings.
    The program of which I am most proud, and in my estimation has had 
the longest-term impact, is CIVITAS in Bosnia and Herzegovina, for 
which I served as the responsible U.S. Embassy program officer from 
1998-2000. This program taught the rights and responsibilities of 
citizens in a democracy to students in that country. Students also 
learned problem-solving skills and how to take civic action, which they 
put into practical use. During my tenure a common curriculum was 
adopted by the school districts across ethnic lines, an incredible 
program that continues to this day.
    More recently, in Guyana in 2009, I took personal action when a 
group of 40 Mormon missionaries, ranging from young people to senior 
citizens, were detained by the Government under a rarely enforced visa 
rule as they were trying to leave the country. The group (some, but not 
all, of whom were U.S. citizens) was held in an office space not 
designed for detentions. When the Ministry of the Interior refused our 
requests to release the detainees, or at least transfer them to 
facilities with beds and adequate sanitary conditions, I made a high-
profile visit as Charge d'Affaires, a.i. to the detainees to draw 
attention to the situation. I also made an in-person plea to the 
President of the country. The situation was resolved within a few hours 
of my actions and made clear that harassment of religious groups would 
not be tolerated.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in Suriname? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The Surinamese people demonstrated their commitment to 
democracy in May 2015 when the country held its sixth consecutive free 
and fair national election. The next election in 2020 is also widely 
expected to be free, fair, and transparent. One of the challenges to 
democracy or democratic development in Suriname is corruption. 
Transparency International ranks Suriname 77 out of 180 for perceptions 
of corruption, which saps economic growth, hinders development, 
destabilizes governments, and undermines democracy.
    Surinamese law protects freedom of expression and the press, which 
are guaranteed by the country's constitution. There are indications, 
however, self-censorship due to government pressure significantly 
hampers freedom of expression in the Surinamese media. Although 
physical harassment is rare or absent, government officials often 
refuse to give information to journalists affiliated with opposition 
media and instead limit their media contacts to state television. 
Suriname also has criminal defamation laws that carry harsh penalties 
of three months to seven years. In 2017, Suriname formed a National 
Information Institute to control the flow of information from the 
Government.

    Question 6. What steps will you take--if confirmed--to support 
democracy in Suriname? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will commit to sustained engagement with a 
broad spectrum of civil society in Suriname, including political 
parties, human rights activists, religious groups, and watchdog 
organizations. I will champion existing embassy programs designed to 
foster democracy and human rights aligned with U.S. strategic 
interests. I will also engage directly with local leaders at all levels 
of society on resolving pressing democracy and human rights concerns.
    Suriname enjoys a strong and stable democracy, but needs to take 
action to address corruption in sectors of the Government and society. 
If confirmed, I will continue to support U.S. training to military and 
law enforcement personnel, prosecutors, government employees, and 
policymakers to build capacity and bolster democratic institutions in 
Suriname and the region.
    If confirmed, I will push back on the Government pressure on 
journalists that leads to self-censorship of journalists due to 
historical legacy and the small-town nature of the country. I will 
advocate for freedom of the press, including passage of freedom of 
information legislation, as a key component of democratic governance. I 
will encourage the press to foster active debate, increase 
investigative reporting, and serve as a forum to express different 
points of view, particularly on behalf of those who are marginalized in 
society.
    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work with USAID and my public 
diplomacy colleagues at Embassy Paramaribo and our contacts in 
Washington to source funding to support democracy and governance in 
Suriname via programming, public events, and grants to Surinamese NGOs, 
where applicable. If confirmed, I will prioritize programs that focus 
on combatting corruption, trafficking in persons, and self-censorship 
in the press.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Suriname? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will commit to sustained engagement with a 
broad spectrum of civil society in Suriname, including human rights 
activists and religious groups. I will ensure the Department continues 
to vet thoroughly all individuals and units nominated to participate in 
U.S.-funded security assistance activities, in accordance with the 
Leahy law. If there are findings of credible information regarding 
gross violations of human rights, I will take the necessary steps in 
accordance with the law and Department policy to ensure those 
implicated do not participate in U.S.-funded assistance.
    If confirmed, I will engage with the Government to advocate the 
continued open environment for NGOs and civil society groups to operate 
without unnecessary legal or regulatory restrictions. To the extent 
possible, I will also urge that the perpetrators of gross violations of 
human rights be held accountable.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meet with all democratically-
elected Surinamese political opposition figures and parties. In my 
interactions with Surinamese officials, I will emphasize the importance 
of a free, open, and fair political system as the basis to modern 
democracy. If confirmed, I will also advocate for the inclusion of 
underrepresented and historically marginalized groups, including women, 
minorities, and youth, in political parties.

    Question 10. Will you and your embassy team actively engage with 
Suriname on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Suriname?

    Answer. If confirmed, I will support freedom of the press in 
Suriname as an essential pillar of democracy. I will commit to 
advocating for the rights of journalists in the print, broadcast, and 
digital space. Suriname has well-developed print and broadcast media 
and, if confirmed, I will fully support the U.S. embassy's efforts to 
preserve and strengthen the capacity of journalists on all of these 
platforms, including training in investigative skills, transparency, 
accountability in reporting, and digital security. I will work closely 
with interagency colleagues and the international community to broaden 
resources for start-up outlets and established media organizations. If 
confirmed, I look forward to meeting regularly with independent and 
local press in Suriname to underscore my commitment to a free and well-
informed press.

    Question 11. Will your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The Department of State is concerned by any efforts to 
disseminate disinformation and anti-U.S. propaganda in Suriname and the 
region. If confirmed, I, along with my Embassy team, will work to 
promote accurate messages about the United States and other nations in 
the pursuit of freedom, prosperity, and security in the Western 
Hemisphere. One of the best defenses against disinformation is a free 
and transparent news media environment. If confirmed, I would work to 
monitor and counter any such efforts in Suriname, including by 
encouraging digital media literacy, independent journalism, and 
supporting civic-tech groups and other local stakeholders to inform the 
public and stem the malign spread of disinformation.

    Question 12. Will you and your embassy teams actively engage with 
Suriname on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, my embassy team and I will actively 
engage with Suriname on the right of Surinamese labor groups, including 
independent trade unions, to organize.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Suriname, no 
matter their sexual orientation or gender identity? What challenges do 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Suriname? What specifically will you commit to do to help LGBTI people 
in Suriname?

    Answer. If confirmed, I will commit to use my position to defend 
the human rights and dignity of all people in Suriname, regardless of 
their sexual orientation or gender identity. Although Suriname does not 
criminalize consensual same-sex sexual activity and has laws against 
LGBTI discrimination and hate speech, homophobia is widespread and same 
sex marriage is not legal. LGBTI people continue to face discrimination 
and violence and are vulnerable to human trafficking.
    If confirmed, I will work to strengthen existing programs to build 
capacity in local civil society organizations to promote social 
inclusion and advance the human rights of LGBTI people. I will also 
engage the Government regarding human rights issues in general, 
including the human rights of LGBTI persons.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Karen Williams by Senator Marco Rubio

    Question 1. If confirmed, do you commit to prioritize combatting 
trafficking-in-persons with the Government of Suriname?

    Answer. Yes. If confirmed, I commit to prioritizing combatting 
trafficking-in-persons with the Government of Suriname. As part of 
this, if confirmed, I will urge Suriname to vigorously investigate and 
prosecute trafficking offenses and convict and punish traffickers with 
sufficiently stringent sentences; increase efforts to identify victims, 
including forced labor victims in the interior; and develop and 
implement formal procedures to refer identified victims for care.

    Question 2. If confirmed, will you work with the Government on a 
national action plan to combat trafficking in persons?

    Answer. Yes. If confirmed, I will absolutely work with the 
Government to complete and implement a national action plan to combat 
trafficking in persons.

    Question 3. If confirmed, do you commit to focusing on this issue 
and developing a strategy to encourage the Government of Suriname to 
tackle illicit mining?

    Answer. Yes. If confirmed, I commit to focusing on and encouraging 
the Government of Suriname to develop a strategy for tackling illicit 
mining.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Karen Williams by Senator Benjamin L. Cardin

    Question 1. What does increased U.S. presence and engagement look 
like to you in Suriname specifically, and throughout the Caribbean and 
Central/Latin America more broadly?

    Answer. The administration's long-term strategic goal is a 
bilateral relationship based on a positive and cooperative partnership 
through which both countries can advance shared goals.
    Suriname is included in Caribbean 2020, the United States' multi-
year strategy for engagement with the nations of the Caribbean. Through 
this platform, the United States works with Suriname within the broader 
scope of our engagement in the Caribbean region in the areas of 
security, diplomacy, prosperity, energy, education, and health.
    In the short term, the United States will continue efforts to fight 
against HIV/AIDS; strengthen evidence-based decision making in citizen 
security; help professionalize the press and the military; strengthen 
the police and the judiciary; and encourage measures to facilitate 
economic growth and investment.
    Question 2. In your view, what additional assistance programming, 
bilateral or multilateral engagement and diplomacy would garner 
increased support for U.S. national security priorities at the OAS and 
U.N.?

    Answer. Suriname support for Venezuela and Nicaragua in the OAS and 
opposition to U.S. priorities at the United Nations is problematic. If 
confirmed, I will work closely with my colleagues at the U.S. Missions 
to the United Nations (USUN) and to the Organization of American States 
(USOAS). This close coordination will allow me to serve as their 
advocate on the ground in Paramaribo. I will make it a point to engage 
with the Surinamese Government early and often on votes and resolutions 
in multilateral institutions, and explain why they matter to the United 
States.

    Question 3. Would you say our engagement in the region too focused 
on security at the cost of other goals like economic prosperity or 
social justice? Are we investing enough in programs and activities that 
address the root causes of criminal activity, instability and conflict, 
such as economic development, good governance, rule of law, civil 
society support, and human rights?

    Answer. Security is just one of the six pillars of the U.S. 
strategy for engagement in the Caribbean, which identifies the 
priorities for United States engagement with the region in the areas of 
security, diplomacy, prosperity, energy, education, and health.
    On security, the Caribbean Basin Security Initiative supports 
regional programs such as good governance, rule of law, and respect for 
human rights to address the root causes of criminal activity, 
instability, and conflict.
    If confirmed, I will seek to increase our own and our neighbors' 
prosperity by promoting sustainable growth, open markets for U.S. 
exports, and private sector-led investment and development. On energy, 
exports of U.S. natural gas and the use of U.S. renewable energy 
technologies provide cleaner, cheaper alternatives to heavy fuel oil 
and lessen reliance on Venezuela.
    On education, I will focus our resources on exchanges and programs 
for students, scholars, teachers, and other professionals that provide 
mutual benefits to U.S. and Caribbean communities and promote economic 
development and entrepreneurship. In the area of health, I will 
continue to partner with countries in the region in the fight against 
infectious diseases, like HIV/AIDS and Zika, recognizing deadly 
pathogens are threats that know no borders.

    Question 4. How does impunity for Bouterse's crimes affect the 
integrity of Suriname's democracy?

    Answer. President Bouterse is the democratically elected leader of 
Suriname. Although I am cognizant of President Bouterse's legal 
problems, the Surinamese people demonstrated their continued commitment 
to democracy in May 2015 when the country held its sixth consecutive 
free and fair national election. I respect the will of the Surinamese 
people and I will, if confirmed, officially engage with the President 
accordingly.
    Although the December Murders Trial, in which President Bouterse is 
a defendant, began in November 2007 and the case has been plagued by 
prolonged delays, it is in its final arguments phase and is expected to 
be completed in 2018, leaving only a ruling due in 2019. Impunity is 
not a foregone conclusion. Nine defendants, including Bouterse, have 
already received sentence recommendations of 20 years. Given the 
glacial pace of these proceedings, one cannot guarantee when the judges 
will decide the case. I cannot comment on the merits of the case 
against the defendants. If confirmed, I will encourage all parties to 
support the process to its conclusion, without interference or 
political pressure on the judiciary.

    Question 5. How do you plan to engage if the Bouterse Government 
faces political unrest?

    Answer. The Surinamese people have demonstrated a continuing 
commitment to democracy, most recently in May 2015 when the country 
held its sixth consecutive free and fair national election. The next 
elections are expected to be equally free and fair. President Bouterse 
remains the undisputed leading contender for the 2020 elections.In the 
event of political unrest in Suriname, as with any government facing 
unrest, the United States Government would condemn any violence or 
excessive force used by police and others against civilians who 
exercise their right to freedom of expression and assembly. We would 
call for a broad?-based dialogue involving all sectors of society to 
resolve any conflict, maintain respect for human rights, and preserve a 
democratic future for the Surinamese people.

    Question 6. How has the Caribbean Basin Security Initiative helped 
to stem drug trafficking through Suriname?

    Answer. The Caribbean Basin Security Initiative (CBSI) budget for 
FY 2017 was $57.7 million and included support for regional security 
and information sharing programs that benefited Suriname. In FY 2017, 
Suriname also received $269,000 in bilateral assistance from the United 
States.
    The United States Government provides training to military and law 
enforcement personnel, prosecutors, government employees, and 
policymakers to build capacity and bolster institutions in Suriname and 
the region. Specifically, U.S. assistance facilitates respect for 
civilian authority over the military, and builds capabilities in 
Surinamese law enforcement to counter narcotics trafficking and to 
collect and investigate evidence. In the last two years, more than 100 
police officers from Suriname have attended specialized training 
courses on topics as diverse as police professionalization, money 
laundering, prosecution and interdiction techniques, enhanced police 
river patrol capabilities, and trafficking. The CariSECURE Project 
supports the establishment of a National Task Force, led by Suriname's 
Ministry of National Security, to implement evidence-based decision-
making tools in the criminal justice system. In 2017, the United States 
provided two boats and a trailer to Maritime Police Units to facilitate 
riverine monitoring and interdiction. The United States also supports 
Suriname's participation in a regional United Nations project that 
addresses port security.

    Question 7. Given Suriname's dense forests and lack of enforcement 
capacity, how is the United States working to ensure Suriname is no 
longer a transit country for narcotics?

    Answer. The United States remains concerned that remote and 
unpatrolled areas of Suriname could become safe havens for narcotics 
traffickers and other criminals. President Desire Bouterse has 
supported limited cooperation with the United States in recent years on 
efforts to combat narcotics trafficking, but given the country's 
sparsely populated coastal region and isolated jungle interior, 
together with weak border controls and infrastructure, narcotics 
detection and interdiction efforts remain difficult. As a result, the 
Government of Suriname will continue to face significant resource, 
capacity, and law enforcement personnel challenges.
    The U.S. Government works closely with elements of the Government 
of Suriname to build its institutional capacity in a number of sectors, 
ranging from law enforcement, narcotics trafficking, transnational 
crime, and counterterrorism. If confirmed, I will continue to support 
these programs, especially those that build law enforcement 
capabilities to combat narcotics trafficking.

    Question 8. How are elements of the strategy being implemented in 
Suriname?

    Answer. The United States strategy for engagement in the Caribbean 
identifies priorities for engagement with the region in the areas of 
security, diplomacy, prosperity, energy, education, and health. On 
security, as part of the Caribbean Basin Security Initiative and 
through its CariSECURE Project, USAID produced and customized a Dutch 
language Caribbean Citizen Security Toolkit for Suriname. The project 
also established a National Task Force led by the Ministry of National 
Security intended to improve citizen security in Suriname by working 
together to implement evidence-based decision-making tools within the 
criminal justice system and agencies working in crime and violence. INL 
programs continue to develop Suriname's ability to professionalize 
police and address transnational crimes such as money laundering and 
narcotics trafficking.
    On health and education, as part of the PEPFAR, USAID works to 
reduce transmission and address care gaps for key populations and those 
living with HIV/AIDS. USAID also worked to reduce the spread of Zika by 
engaging community leaders to educate about Zika and to coordinate 
community clean-up campaigns to eliminate mosquito breeding sites to 
prevent the spread of Zika infection. USAID provides psychosocial 
support to women and families affected by Zika. The Department of State 
assists in fighting the stigma and discrimination against people with 
HIV/AIDS through the Ambassador's HIV Prevention Program. The Centers 
for Disease Control supported Suriname's fight against HIV/AIDS through 
assistance to the Ministry of Health.
    On prosperity and energy, Suriname's emerging economy creates new 
possibilities for U.S. exports and investments. The United States 
remains one of Suriname's principal trading partners. U.S. companies 
have long-standing investments in the extractive industries including 
bauxite and gold, and Surgold, a subsidiary of U.S.-based Newmont 
Mining, opened a gold mine and refinery in Suriname in 2016. U.S. 
companies also have agreements for offshore oil exploration with state 
oil company Staatsolie. Opportunities for U.S. exporters, service 
companies, and engineering firms will likely continue to expand over 
the next decade with increased activity in the mining and oil sectors 
by American companies. Suriname is looking to the United States and 
other foreign investors to assist in the commercial development of its 
vast natural resources and to help finance infrastructure improvements.

    Question 9. As Ambassador, what recommendations would you make for 
increasing U.S. engagement with Suriname?

    Answer. If confirmed, I would seek to deepen existing relations and 
broaden the dimensions of our current relationship with Suriname. I 
believe we have opportunities to increase engagement in several areas. 
I would continue our security cooperation to help the Government 
address the challenges of its porous borders and vast uninhabited 
terrain. I would fully support the new three-year money-laundering 
program that was launched this year and seek to deepen our engagement 
to support the Government's efforts to bolster Suriname's anti-money 
laundering framework. Exciting new energy prospects in the region offer 
opportunities for the U.S. Government to engage with Suriname on a 
commercial and technical assistance basis. To do this, I would draw on 
the wide range of tools the U.S. Government has to offer, including 
regional programs such as the Caribbean Basin Security Initiative. I 
would also use our public diplomacy expertise to help magnify our 
messaging throughout the country. I would also encourage high-level 
visits to help demonstrate U.S. interest in the country, much like the 
congressional delegation that will be visiting Suriname on August 26 
and 27. To that end, I would welcome and encourage visits by members 
and staff of this committee at any time.

    Question 10. In your view, what accounts for Suriname's reluctance 
to support strong action on Venezuela? What is the current state of 
Suriname's relations with Venezuela?

    Answer. Venezuela garnered support in Suriname with scholarship 
programs and its oil-financing program, PetroCaribe. Recent high-level 
engagement includes President Bouterse's August 2017 meeting with 
Foreign Minister Arreaza in Venezuela and Arreaza's visit to Paramaribo 
in February 2018. Suriname retains close relations with Venezuela and 
regularly votes with Venezuela or abstains on U.S. initiatives in 
international organizations.

    Question 11. To what extent in the past did Suriname benefit from 
Venezuela's oil financing program known as PetroCaribe?

    Answer. Suriname has been a PetroCaribe member since 2005 and 
renewed its cooperation agreement in 2011 with a quota of 10,000 
barrels per day; however, Suriname has not received any crude or fuel 
oil supplies under PetroCaribe since 2015. PetroCaribe lending to 
Suriname this decade peaked in 2013 at $55.6 million ($48.3 million in 
2012 and $52.2 million in 2014). In 2017, Suriname's PetroCaribe debt 
stood at 1.5 percent of GDP.

    Question 12. How would you assess Suriname's progress in improving 
its anti-money laundering regime?

    Answer. Despite Suriname's assertions that strengthening the rule 
of law is a high national priority, it could do more to make 
institutional changes for effective enforcement of money laundering 
laws. Although the majority of Suriname's significant informal economy 
is not linked to money laundering proceeds, there are indications that 
money laundering occurs through the non-banking financial system and 
other means, such as foreign exchange businesses and casinos, as well 
as the sale of gold purchased with illicit funds. Suriname has a legal 
framework in place to combat money laundering; however, enforcement 
remains weak and inconsistent. This year, in partnership with our Dutch 
and Organization of American States counterparts, we launched a new 
three-year anti money-laundering program with INL funds, which deepens 
our engagement to bolster Suriname's anti-money laundering framework.

    Question 13. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a long-time Public Diplomacy Officer I implemented or 
administered a large number of programs that sought to build democratic 
institutions, support freedom of the press, and promote defense of 
human rights. These programs and activities ran the gamut from 
administration of justice/rule of law to election monitoring to civil 
liberties awareness trainings.
    The program of which I am most proud, and in my estimation has the 
longest-term impact, is CIVITAS in Bosnia and Herzegovina, for which I 
served as the responsible U.S. Embassy program officer from 1998-2000. 
This program taught students the rights and responsibilities of 
citizens in a democracy. Students also learned problem-solving skills 
and how to take civic action, which even then the students put into 
practical use. During my tenure a common curriculum was adopted by the 
school districts across ethnic lines. It is an incredible program that 
continues to this day.
    More recently, in Guyana in 2009, I took personal action when a 
group of 40 Mormon missionaries, ranging from young people to senior 
citizens, were detained by the Government under a rarely enforced visa 
rule as they were trying to leave the country. The group (some, but not 
all, of whom were U.S. citizens) was held in an office space not 
designed for detentions. When the Ministry of the Interior refused our 
requests to release the detainees, or at least transfer them to 
facilities with beds and adequate sanitary conditions, I made a high-
profile visit (as Charge d'Affaires and with media coverage) to the 
detainees to draw attention to the situation and I also made an in-
person plea to the President of the country. The situation was resolved 
within a few hours of my actions and made it clear that harassment of 
religious groups would not be tolerated.

    Question 14. What are the most pressing human rights issues in 
Suriname? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Suriname? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues include the 
unresolved trial of President Bouterse and 18 codefendants for the 1982 
extrajudicial killings of 15 political opponents; arbitrary arrest of 
protest leaders; threats made against the judiciary; restrictions on 
the right to peaceful assembly; widespread government corruption; 
violence and abuse against women and children; trafficking in persons; 
police violence toward lesbian, gay, bisexual, transgender, and 
intersex (LGBTI) persons as well as persons with HIV and other 
minorities; and child labor.
    If confirmed, I would champion existing embassy and U.S. Government 
programs designed to address these and other human rights issues. I 
will also use my platform as Ambassador to deliver public and private 
messages to the Surinamese people and the country's leadership to make 
clear the United States' expectations with regard to human rights 
protections as well as the measures we intend to take to address our 
concerns.

    Question 15. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Suriname in 
advancing human rights, civil society and democracy in general?

    Answer. Domestic crime, corruption, and an overburdened judicial 
system are the biggest obstacles to progress on human rights in 
Suriname. The independence and authority of the judiciary are also 
directly threatened by members of the executive and legislature, as 
well as by agents of the Government. Although the Government has taken 
some steps to investigate, prosecute, and punish officials who have 
committed human rights abuses or violations, a general sense of 
impunity remains, particularly with respect to credible allegations of 
arbitrary arrest and detention.
    Suriname's challenge is to promote respect for the rule of law with 
its limited resources while respecting human rights in a high-crime 
environment. If confirmed, I will work with my embassy staff to augment 
existing training programs for Surinamese justice-sector officials, 
while ensuring that Leahy vetting is properly conducted where 
applicable. I will also encourage plea bargaining and case management 
reforms to reduce the backlog of criminal cases, and promote the role 
of civil society to strengthen human rights and governance.

    Question 16. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Suriname? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to sustained engagement with a 
broad spectrum of civil society in Suriname, including human rights 
activists and religious groups. If confirmed, I will ensure the 
Department continues to vet thoroughly all individuals and units 
nominated to participate in U.S.-funded security assistance activities, 
in accordance with the Leahy law. If there are findings of credible 
information regarding gross violations of human rights, I will take the 
necessary steps in accordance with the law and Department policy to 
ensure those implicated do not do not receive U.S.-funded assistance. 
To the extent possible, I will also urge that the perpetrators of gross 
violations of human rights be held accountable.

    Question 17. Will you and your embassy team actively engage with 
Suriname to address cases of key political prisoners or persons 
otherwise unjustly targeted by Suriname?

    Answer. Last year's State Department Human Rights Report notes 
there were no reports of political prisoners or detainees in Suriname 
in 2017. If confirmed, however, I will work actively with the embassy 
team to address any cases of political prisoners or persons unjustly 
targeted by government entities to ensure their rights and fundamental 
freedoms are respected.

    Question 18. Will you engage with Suriname on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with Suriname on matters 
of human rights, civil rights and governance.

    Question 19. In your opinion, are Suriname's continued efforts to 
counter trafficking in persons sufficient enough to at minimum maintain 
its Tier 2 watch-list status in future reporting years?

    Answer. Although the Government demonstrated significant efforts 
during the reporting period for the 2018 Trafficking in Persons Report 
by increasing investigations, increasing victim identification efforts 
in the country's interior, and passing two laws to regulate labor 
recruiters and prevent trafficking related to criminal or fraudulent 
recruitment, it is insufficient to guarantee Suriname will maintain its 
Tier 2 watch-list status. To maintain its status as a Tier 2 watch-list 
country, or to reach Tier 2 status, the Government must demonstrate 
increasing efforts compared to the previous reporting periods. Suriname 
risks a return to Tier 3 status if convictions and victims identified 
continue to decrease; courts continue to impose weak sentences on 
convicted traffickers; and the Government does not develop victim 
referral and protection protocols.

    Question 20. What more should Suriname be doing to counter TIP and 
prevent a backsliding to Tier 3?

    Answer. Suriname should vigorously investigate and prosecute 
trafficking offenses and convict and punish traffickers with 
sufficiently stringent sentences; increase efforts to identify victims, 
including forced labor victims in the interior; develop and implement 
formal procedures to refer identified victims for care.
    The Government should hold public officials complicit in human 
trafficking criminally accountable and conduct targeted labor 
inspections in risk-prone areas, such as the interior of the country. 
Additional recommendations are to provide additional training to law 
enforcement, immigration, health care, labor, and judicial officials to 
better identify and protect victims. Suriname should also provide 
reintegration support for all trafficking victims and offer specialized 
processes for assisting foreign victims.
    Two low-cost measures Suriname could implement in short order are 
to increase collaboration with and support of local civil society and 
to complete and implement a national anti-trafficking action plan.

    Question 21. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 22. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 23. Do you or do any members of your immediate family have 
any financial interests in Suriname?

    Answer. No. Neither I nor any members of my immediate family have 
any financial interests in Suriname.

    Question 24. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I look forward to leading the team of U.S. 
and Surinamese nationals at Embassy Paramaribo and to tapping the 
unique and diverse talents each person brings to advance our bilateral 
relationship with Suriname and to promote U.S. foreign policy 
objectives. At the State Department's core are its people. The 
Department is committed to fostering a workforce that reflects the 
diverse people it represents. Diversity not only enhances our 
effectiveness but also promotes a workplace culture that values the 
efforts of all members and enhances the professional experience of our 
valued public servants. The Department's diversity efforts are outlined 
in its 2016 Diversity and Inclusion Strategic Plan. If confirmed, I 
will prioritize a variety of training opportunities, mentoring, and 
career development programs to ensure employees have the skills 
necessary for current and future work assignments.

    Question 25. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The State Department is committed to equal employment 
opportunity (EEO) and to ensuring the Department's work environment is 
free from discrimination and harassment in all phases of employment--
including hiring, evaluation, promotion, and training. This includes 
improving and enhancing mentorship programs, expanding outreach to 
managers who make hiring decisions, and encouraging collaboration with 
external partners. If confirmed, I will communicate strongly the 
Department's EEO policies in my mission and ensure they are followed. I 
will also take advantage of the variety of programs the Department 
offers to help supervisors work with a multicultural staff.

    Question 26. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Suriname 
specifically?

    Answer. Corruption saps economic growth, hinders development, 
destabilizes governments, undermines democracy, and provides openings 
for dangerous groups like criminals, traffickers, and terrorists. The 
Department has made anti-corruption a national security priority and 
works across the globe to prevent graft, promote accountability, and 
empower reformers. Ranking 77 out of 180 on Transparency 
International's Corruption Perceptions Index, Suriname suffers many of 
the effects of political corruption and inconsistent enforcement, but 
fares better than many of its neighbors in the Western Hemisphere.

    Question 27. What is your assessment of corruption trends in 
Suriname and efforts to address and reduce it by that government?

    Answer. According to Transparency International's Corruption 
Perception indices, Suriname has slightly increased transparency since 
2010, but the Government must do more to counter corruption. Suriname 
has a legal framework in place to combat corruption; however, 
enforcement remains weak and inconsistent, and the Government and 
president have been accused of complacency in addressing official 
corruption.

    Question 28. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Suriname?

    Answer. If confirmed, I will continue to make anti-corruption a 
national security priority and work in Suriname to prevent graft, 
promote accountability, and empower reformers. I will highlight and 
assist groups committed to tackling corruption through strengthening 
democratic institutions and empowering citizen advocates to hold the 
Government accountable for corruption.
    If confirmed, I will work with global partners to enhance law 
enforcement cooperation across borders, improve data sharing between 
major financial hubs, and develop tools to recover stolen assets.
    If confirmed, I will address corruption in the security arena, 
explaining how corruption threatens Suriname's national security and 
its ability to protect citizens, hold terrorists at bay, and defend 
national sovereignty.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Francisco L. Palmieri by Senator Robert Menendez

    Question 1. If confirmed, how do you plan to work with Honduras to 
address the problems of violence, poverty and weak security and justice 
institutions driving children and families from their countries?

    Answer. U.S. programs and engagement aim to secure U.S. borders and 
protect U.S. citizens by addressing the security, governance, and 
economic drivers of illegal immigration and illicit trafficking. Those 
programs are guided by the U.S. Strategy for Central America, which 
seeks to enhance regional economic opportunity, reduce insecurity and 
violence, and fight impunity and corruption. Our assistance complements 
the Plan of the Alliance for Prosperity, a reform initiative of the 
Northern Triangle governments designed to stimulate the productive 
sector, develop opportunities for citizens, improve public safety, 
enhance access to the legal system, and strengthen institutions. The 
Northern Triangle governments committed $5.4 billion to address these 
goals.
    If confirmed, I commit to advancing our partnership with the 
Honduran Government through U.S. programs and assistance that 
complement the Plan of the Alliance for Prosperity.

    Question 2. If confirmed, how will you work to support efforts to 
address the ongoing aftermath of the Honduran elections and strengthen 
democratic institutions?

    Answer. Honduras invited the United Nations to facilitate a 
national dialogue for reconciliation, and the United Nations is leading 
a series of meetings with the three leading political parties (National 
Party, Libre, and Liberal Party) to identify parameters for a potential 
national dialogue. This dialogue is vital to foster social 
reconciliation in the aftermath of the November 2017 elections. If 
confirmed, I will advocate for a robust national dialogue, the 
enactment of significant electoral reforms to strengthen confidence in 
Honduran institutions and bolster Honduran democracy, and a significant 
role for civil society in these process.

    Question 3. If confirmed, do you commit to advocating for and/or 
supporting efforts to investigate the incidents of military police 
killing civilians?

    Answer. If confirmed, I will reinforce the Department's long-
standing position that policing is best done by civilian police who are 
properly trained and equipped and I will continue to support Honduran 
efforts to reform its national police. U.S. foreign assistance is 
helping to develop a professional, accountable, and effective civilian 
police force that upholds the rule of law. I view this support as 
critical to the Honduran Government's efforts to professionalize and 
reform its police force. If confirmed, I will support U.S. assistance 
to strengthen law enforcement in Honduras and I will also continue to 
press the Honduran Government to hold accountable the perpetrators and 
intellectual authors of cases of violence, including members of 
security forces.

    Question 4. If confirmed, what role do you think the U.S. Embassy 
can play in mitigating the effects of a potential disorderly 
repatriation of more than a hundred thousand individuals to Honduras?

    Answer. As a part of its Temporary Protected Status (TPS) review, 
DHS decided on a delayed effective date of 18 months to permit an 
orderly transition, providing time for TPS beneficiaries to arrange for 
their departure and for Honduras to prepare for the reception and 
reintegration of its citizens. Our embassy continues to strengthen 
Honduras' ability to reintegrate returned citizens, including TPS 
returnees, through U.S. foreign assistance programs that disrupt 
transnational criminal organizations, promote citizen security, reduce 
illegal immigration, and promote sustainable economic growth by 
addressing the underlying causes of insecurity, impunity, and lack of 
economic opportunity. If confirmed, I will encourage our Honduran 
counterparts to develop programs to reintegrate their nationals, 
including TPS returnees.

    Question 5. What can the U.S. do to strengthen the MACCIH's work in 
its last two years before the agreement between the Government of 
Honduras and the OAS ends?

    Answer. The Department welcomed the Honduran Government's June 18 
appointment of a new Chief of Mission of the OAS' Mission of Support 
Against Impunity and Corruption in Honduras (MACCIH), Dr. Luiz Antonio 
Marrey Guimaraes of Brazil. If confirmed, I will continue to work with 
the OAS and the Honduran Government to ensure Dr. Marrey Guimaraes is 
able to exercise authority over budgetary, personnel, and operational 
decisions. Following this important appointment, the Department 
underscored its appreciation to the Honduran Government and the OAS for 
reaffirming their ongoing collaboration and commitment to advancing 
MACCIH's mandate and fostering its future success. MACCIH has been 
instrumental in supporting Honduras's efforts to combat corruption and 
impunity and, if confirmed, I will underscore to the current and future 
administration in Honduras the importance of continued commitment to 
support MACCIH's vital work.

    Question 6. If confirmed, do you commit to working to address human 
rights in Honduras?

    Answer. If confirmed, I commit to working to address human rights 
issues in Honduras. U.S. assistance to Honduras directly supports 
programs and institutions to address human rights in Honduras, such as 
impunity, public sector corruption, weak government institutions, drug 
trafficking, and transnational gang activities. If confirmed, I will 
continue to press for Honduran institutions to be fully accountable to 
their citizens and I will also support U.S. assistance for Honduran 
efforts to strengthen the rule of law and build stronger, more 
professional government institutions. These efforts are critical to 
protecting human rights and reducing impunity.

    Question 7. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The protection of human rights and advancement of democracy 
have been core elements of my work throughout my career. From my 
current position as the Acting Assistant Secretary, I have spoken out 
to defend democracy in Venezuela and Nicaragua and urged greater 
respect from human rights in Cuba and Mexico. I have met with human 
rights defenders from across the hemisphere and from my earliest tours 
of duty in my Foreign Service career, I have promoted and advanced 
these U.S. foreign policy priorities.
    I sought assignment as the Human Rights Officer in El Salvador 
during my second tour in the Foreign Service from 1988-1990. One of my 
principal contacts was Father Sergio Montes, a Jesuit priest and human 
rights professor. His brutal murder in the massacre of Jesuits at the 
Catholic Central American University in San Salvador in 1989 enshrined 
in me a commitment to always protect human rights defenders in every 
position I might encumber in subsequent postings overseas or in 
Washington. In El Salvador I would receive reports of arrests or 
missing individuals and then I would travel to specific detention 
facilities, such as the infamous Treasury Police jail and to Salvadoran 
military brigade bases. In some instances I was able to secure the 
immediate release of detainees or sometimes the detained or missing 
individual would be released later often in the middle of night. Too 
often, tragically, most would never be found.
    Later in my career, I served as the Office Director for the Near 
East and South Central Asia in the Bureau of Democracy, Human Rights 
and Labor. In this position, I directed the review and final editing of 
the annual human rights reports for all of the countries in those two 
geographic regions. We also developed grant solicitations and reviewed 
proposals to advance democracy and human rights issues in both regions, 
including, among many different initiatives, programs to advance 
women's political and legal rights in the Middle East and to improve 
the roles of political parties in the election process in Iraq.
    I will always speak out on the issue of human rights and democracy, 
which I firmly believe are core values to our foreign policy.

    Question 8. What issues are the most pressing challenges to 
democracy or democratic development in Honduras? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Honduras continues to face serious challenges regarding 
corruption, impunity, and human rights. If confirmed, I will continue 
to press for full accountability of Honduran institutions and support 
U.S. assistance for Honduran efforts to strengthen the rule of law and 
build stronger, more professional government institutions. These 
efforts are critical to supporting democracy, protecting human rights, 
and reducing impunity.

    Question 9. What steps will you take--if confirmed--to support 
democracy in Honduras? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Honduras continues to face democracy and human rights 
challenges and, if confirmed, I will continue to prioritize democracy 
and human rights issues. U.S. assistance to Honduras directly supports 
programs and institutions to address democracy and human rights 
challenges in Honduras, such as impunity, public sector corruption, 
weak government institutions, drug trafficking, and transnational gang 
activities. If confirmed, I will continue to partner with Honduran 
civil society and international non-governmental organizations to 
monitor and follow up on alleged human rights abuses, including attacks 
on human rights defenders. If confirmed, I will also continue to press 
for the Honduran Government to strengthen the rule of law and build 
stronger, more professional institutions. These efforts are critical to 
supporting democracy, protecting human rights, and reducing impunity, 
which in turn improve Honduran prosperity and stability.

    Question 10. What steps will you take--if confirmed--to support 
democracy in Honduras? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Corruption and impunity pose significant challenges to 
ensuring support for democracy and the respect for human rights in 
Honduras. The Department held a bilateral human rights working group 
with the Honduran Government in April to collaborate on strengthening 
democracy and respect for human rights in Honduras. Issues addressed 
include strengthening governmental human rights institutions, working 
with international human rights partners and civil society, improving 
citizen security, combating corruption and impunity, and stemming 
outward migration. If confirmed, I will utilize mechanisms such as the 
bilateral human rights working group to urge the Honduran Government to 
support democracy, uphold human rights, and demonstrate a clear 
commitment to addressing corruption, consistent with its international 
commitments and legal obligations.

    Question 11. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Honduras? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will continue to partner with human rights 
organizations, civil society, and other NGOs in the United States and 
with local human rights NGOs in Honduras to monitor and follow up on 
alleged human rights abuses. If confirmed, I will also engage NGOs and 
civil society to discuss any concerns they may have regarding their 
ability to operate in an open and transparent manner, free from fear of 
persecution.

    Question 12. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Vibrant political competition among diverse viewpoints is 
essential to a healthy democracy. If confirmed, I commit to meeting 
with and discussing the concerns of political parties across the 
Honduran political spectrum. To ensure genuine political competition, 
Hondurans must have confidence in their institutions and processes. If 
confirmed, I will encourage the Honduran Government to make necessary 
electoral reforms to strengthen public confidence in its institutions. 
The post-election national dialogue is vital to these efforts and it 
plays a role in ensuring genuine political competition in years to 
come. If confirmed, I will advocate for the inclusion of all sectors of 
the Honduran population in the political process, including women, 
minority groups, and youth.

    Question 13. Will you and your embassy team actively engage with 
Honduras on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Honduras?

    Answer. A free and active press is an integral part of a healthy 
democracy. The Department of State is committed to supporting efforts 
to promote freedom of the press. If confirmed, I will work with my 
embassy team to support press freedom and freedom of expression in 
Honduras. The U.S. Embassy in Tegucigalpa will continue to engage with 
independent local media in Honduras.

    Question 14. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The Department of State is concerned by any efforts to 
disseminate disinformation and anti-U.S. propaganda in Honduras and the 
region. If confirmed, I will work with my embassy team to promote 
accurate messages about the United States and other nations in the 
pursuit of freedom, democracy, prosperity, and security in the Western 
Hemisphere. One of the best defenses against disinformation is a free 
and transparent news media environment. If confirmed, I would work to 
monitor and counter any such efforts in Honduras, including by 
encouraging digital-media literacy, independent journalism, and 
supporting civic-tech groups and other local stakeholders to inform the 
public and stem the malign spread of disinformation.

    Question 15. Will you and your embassy teams actively engage with 
Honduras on the right of labor groups to organize, including for 
independent trade unions?

    Answer. A vibrant and independent civil society, including trade 
unionists and their work to protect fundamental freedoms, is vital to 
building a peaceful, prosperous, and inclusive democratic nation. The 
U.S. Government has worked to improve the climate for labor rights in 
Honduras, primarily through the U.S-Honduras Labor Rights Monitoring 
and Action Plan and through programs to improve the capacity of the 
Ministry of Labor to enforce labor laws, build trade union capacity, 
and address violence and threats against unionists. If confirmed, I 
will continue to press Honduras to address remaining challenges through 
concrete, transparent, and timely actions, both at the policy level and 
with respect to specific employers. If confirmed, I will also work 
closely with other U.S. Government agencies, including the Department 
of Labor, as well as Honduran and international non-governmental 
organizations, to monitor the situation of unionists, human rights 
defenders, and other historically marginalized populations and advocate 
for their rights and protection in Honduras.

    Question 16. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Honduras, no 
matter their sexual orientation or gender identity? What challenges do 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Honduras? What specifically will you commit to do to help LGBTI people 
in Honduras?

    Answer. Yes, if confirmed, I will defend the human rights and 
dignity of all people in Honduras, no matter their sexual orientation 
or gender identity. As Secretary Pompeo affirmed in his statement on 
the International Day Against Homophobia, Transphobia, and Biphobia, 
``the United States stands with people around the world in affirming 
the dignity and equality of all people regardless of sexual 
orientation, gender identity or expression, or sex characteristics. 
Human rights are universal, and LGBTI people are entitled to the same 
respect, freedoms, and protections as everyone else.''
    In Honduras, the law states sexual orientation and gender identity 
characteristics merit special protection from discrimination and 
includes these characteristics in a hate crimes amendment to the penal 
code. Nevertheless, there has been widespread social discrimination 
against LGBTI persons. If confirmed, I will promote the inclusion of 
LGBTI persons and support the Department's use of public and private 
actions to counter violence and discrimination against LGBTI persons. 
These include diplomatic outreach through bilateral and multilateral 
channels, offering emergency assistance to LGBTI persons and 
organizations at risk, and imposing visa restrictions and economic 
sanctions, as appropriate, against those who violate their human 
rights.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Francisco L. Palmieri by Senator Marco Rubio

    Question 1. In detail, what did Embassy Guatemala City's 
``research'' entail? How thorough would you judge that research?

    Answer. The research included embassy personnel's review of the 
case file and the Guatemalan penal code. In addition, embassy personnel 
spoke to representatives of the International Commission Against 
Impunity in Guatemala (CICIG), the Public Ministry, the Migration 
Service, the Solicitor General's Office, the Guatemalan courts, and the 
Bitkov family's lawyers, and sought to hear all sides.

    Question 2. Did you personally review Embassy Guatemala City's 
research? If no, why not?

    Answer. I have not reviewed the embassy's research as no formal 
report was issued.

    Question 3. What are the specific findings of the investigation by 
Embassy Guatemala City?

    Answer. I understand that there was not a formal investigation; 
however, the embassy conducted informal research and inquiries with the 
appropriate stakeholders. No formal report was issued. I understand 
that the Embassy did not find any information to corroborate 
allegations of collusion between CICIG and Russia on the Bitkov case.

    Question 4. Did Embassy Guatemala City's investigation identify any 
inconsistencies in CICIG's actions, particularly in the case of the 
Bitkov family? If no, why are the reforms your referenced in your 
previous answers needed?

    Answer. I understand that there was not a formal investigation; 
however, the embassy conducted informal research and inquiries with the 
appropriate stakeholders. No formal report was issued. The Embassy did 
not come across any inconsistencies in CICIG's actions. The planned 
reforms would assist CICIG to maintain its effectiveness, transparency, 
and credibility, while ensuring they are transferring capacity 
effectively and efficiently to Guatemalan institutions. The process to 
undertake a package of reforms was started prior to allegations 
regarding the Bitkov family. The reform proposals do not apply to a 
specific case, but rather will ensure CICIG is able to carry out its 
mandate.

    Question 5. Why hasn't the Bureau of Western Hemisphere Affairs 
conducted a full investigation into allegations that CICIG has been 
unduly influenced by external actors and has failed to fulfill its own 
anti-corruption mandate?

    Answer. The Bureau of Western Hemishere Affairs does not conduct 
investigations of external organizations. Rather, the U.S. Embassy in 
Guatemala City conducted research utilizing a variety of sources to 
determine whether there was information to corroborate allegations 
against CICIG.

    Question 6. Would you release to my office the findings of the 
research conducted by Embassy Guatemala City? If no, why not?

    Answer. I understand that there was not a formal investigation; 
however, the embassy conducted informal research and inquiries with 
appropriate stakeholders. No formal report was issued. The Department 
would be happy to provide you a briefing on this case.

    Question 7. Who are the State Department officials supervising the 
CICIG matter, including the Bitkov case?

    Answer. There is no single State Department official who supervises 
CICIG issues. As these issues are crosscutting, various bureaus in the 
State Department continue to communicate and discuss ongoing 
developments relating to CICIG. Key stakeholders include the Bureaus of 
Western Hemisphere Affairs, International Narcotics and Law Enforcement 
Affairs, International Organizations, and Democracy Human Rights and 
Labor. In addition, the U.S. Mission to the United Nations has been 
actively involved with the Department on these matters.

    Question 8. When and how did you first learn of a health issue with 
our personnel at Embassy Havana?

    Answer. The Department became aware of an increase in harassment 
and some non-specific health complaints in late December 2016. It was 
not until months later in late March 2017, after highly specialized 
medical testing was performed and analyzed by experts, that the 
Department received confirmation of the health effects.

    Question 9. How did you respond upon being notified?

    Answer. Our response has been robust. Throughout 2017, we requested 
the departure of more than one dozen diplomats to underscore the 
severity of the issue to the Cuban authorities. We have raised this 
issue with the Cuban Government at every level and on multiple 
occasions, reminding them of their obligations to protect our diplomats 
under the Vienna Convention and underscoring the urgency of resolving 
this issue. We continue to engage every government agency--including 
DOE, CDC, NIH, and DOD--to find the culprit behind these attacks and 
hold them accountable. On September 29, 2017, the Secretary ordered the 
departure of non-emergency personnel assigned to the U.S. Embassy in 
Havana, as well as all family members. When ordered departure ended in 
March 2018, the Department maintained emergency Embassy staffing due to 
continued concerns for the safety and security of our personnel.

    Question 10. Did you believe that Embassy Havana personnel were 
attacked? If yes, when did you reach that conclusion? If not, why?

    Answer. Yes, I believe Embassy personnel were attacked. We have 
referred to them as ``incidents'' or ``health attacks'' at different 
points in time. No matter what we call them, we are talking about 26 
members of the Embassy community who appear to have been targeted and 
who suffered injuries while serving in Havana. There is much we do not 
know, and the investigation is ongoing.

    Question 11. Did you recommend to the Secretary that he establish 
an Accountability Review Board (ARB)? If yes, when?

    Answer. The Accountability Review Board (ARB) Permanent 
Coordinating committee (PCC) is the body responsible for making 
recommendations to the Secretary on whether to convene an 
Accountability Review Board, based on the statutory criteria set forth 
in 22 USC 4831. The PCC met on September 28 and November 28, 2017 to 
review the available facts surrounding the incidents in Havana, and 
recommended to the Secretary that he convene an independent ARB.

    Question 12. Did WHA participate in the Embassy Havana ARB 
Permanent Coordinating committee? If yes, what was your exact role?

    Answer. Yes, I participated in the ARB Permanent Coordinating 
committee (PCC) meetings held on September 28 and November 28, 2017 as 
a voting member.

    Question 13. If confirmed, do you commit to discussing consistently 
with the host government the importance the U.S. Government places on 
their continued relations with Taiwan?

    Answer. If confirmed, I commit to discussing with the Honduran 
Government the importance the U. S. Government places on Honduras' 
continued relations with Taiwan and on cross-strait stability. China's 
efforts to unilaterally alter the status quo undermine the framework 
that has enabled regional peace, stability, and development for 
decades. If confirmed, I will express to the Government of Honduras our 
great disappointment with countries that fail to consider this critical 
factor in the decision to switch diplomatic recognition and destabilize 
the delicate balance in the Taiwan Strait. Consistent with the Taiwan 
Relations Act, the United States is gravely concerned with any effort 
to determine the future of Taiwan by other than peaceful means, 
including by boycotts or embargoes. The United States will continue to 
support Taiwan as it seeks to expand its already significant 
contributions to addressing global challenges and as Taiwan resists 
efforts to constrain its participation on the world stage.
    If confirmed, I will do all I can to prevent Honduras from 
switching diplomatic recognition from Taiwan to China.

    Question 14. If confirmed, would you support cutting foreign 
assistance for severing diplomatic recognition for Taiwan?

    Answer. If confirmed, I will underscore to Honduras the importance 
of cross-strait stability to the United States and express our great 
disappointment with countries that fail to consider this critical 
factor in the decision to switch diplomatic recognition and destabilize 
the delicate balance in the Taiwan Strait. Taiwan is a democratic 
success story, a reliable partner, and a force for good in the world. 
China's efforts to alter unilaterally the status quo in the Taiwan 
Strait are harmful to the targeted countries and to the region, and 
those efforts also decrease stability.
    The President has been clear that countries receiving U.S. taxpayer 
money should support the national security interests of the United 
States. We have a thorough interagency process to evaluate assistance 
to foreign governments and, if confirmed, I would rely on the decisions 
made through this process.

    Question 15. According to the American Chamber of Commerce in 
Honduras, in 2017 the Government of Honduras owed more than $60 million 
in tax refunds to 49 local and U.S. companies. This includes seven U.S. 
companies that were owed at the time more than $34 million.
    If confirmed, how would you encourage the Government of Honduras to 
promote a culture of tax compliance among its citizens and businesses?

    Answer. The Department and other U.S. Government agencies encourage 
foreign governments to promote a culture of tax compliance among their 
citizens and businesses by simultaneously promoting greater 
transparency in government and more open government policies. In 
Honduras, the Department continues to push for greater transparency, 
improved anti-corruption policies, and tax compliance to support the 
programs that will benefit the citizens of Honduras. Credible tax 
collection requires taxing all companies, foreign and domestic, in a 
nondiscriminatory and transparent fashion. I understand the Department 
regularly meets with and advocates for the interests of U.S. companies 
who have invested in Honduras. If confirmed, I will continue this 
practice and will advocate for a transparent, predictable, and level 
playing field for U.S. companies doing business in Honduras.

    Question 16. What steps would you take to ensure that the 
Government fulfills the legal and financial obligations necessary to 
foster an attractive investment environment and stimulate economic 
growth, including the timely refund of excess taxes paid by U.S. 
companies?

    Answer. Transparent, consistent, and predictable rule of law and 
processes that enforce legal and financial obligations, including tax 
collection and reimbursement procedures, are important to attracting 
foreign direct investment and fostering economic growth. The U.S. 
Embassy in Honduras engages in dialogue and conducts programs that help 
to facilitate trade and improve the investment and business climates in 
Honduras. If confirmed, I will make it a high priority to ensure the 
Honduran Government resolves any tax disputes with U.S. companies in a 
fair and transparent manner and fosters an investment environment 
conducive to attracting U.S. companies.

    Question 17. What reform efforts are being made to increase 
transparency and improve accountability for the International 
Commission Against Impunity in Guatemala (CICIG) and when will those 
reforms be implemented?

    Answer. The United States Government is making its annual 
contribution to CICIG conditional on the following reforms: 1) 
increasing oversight of CICIG through the establishment of an oversight 
mechanism within the United Nations Development Programme to carry out 
functions similar to an Inspector General, including providing 
quarterly reports in addition to reports CICIG is already required to 
provide; 2) creation of a permanent Deputy Commissioner position 
appointed by the U.N. Secretary General that will report to the CICIG 
Commissioner and that can act as the head of CICIG in the absence of a 
commissioner; and 3) quarterly reports on progress toward advancing the 
Commission's exit strategy by improving the capacity of Guatemalan 
institutions. In addition, we are working with CICIG to ensure 
implementation of a media engagement strategy in line with existing 
U.N. prosecutorial guidelines to ensure CICIG does not materially 
prejudice open cases through its public remarks. As briefed to 
Congressional staff, the Department will need to receive assurances 
that these reforms will be accepted in advance of any U.S. 
contribution.

    Question 18. As Acting Assistant Secretary for the Western 
Hemisphere, have you or any other State Department officials conducted 
an investigation into reports of improper collusion between CICIG, the 
Fiscal!a Especial Contra la Impunidad (FECI), and judges and 
magistrates involved in the case of Bitkov family?

    Answer. I have not conducted any investigation; however, I am 
informed that Embassy Guatemala City and Department offices have 
researched the case involving the Bitkov family and have found no 
evidence that there was improper collusion between CICIG, FECI, or any 
other judicial officials.

    Question 19. Have you investigated reports of improper collusion 
between CICIG and the Putin regime and its cronies, including VTB Bank, 
Gazprom Bank, or Sberbank (Savings Bank of the Russian Federation)? If 
yes, please describe what these investigations entailed and what 
conclusions were reached.

    Answer. I have not investigated this issue. I am informed that 
Embassy Guatemala City and Department offices researched the case 
involving the Bitkov family and have found no evidence that CICIG 
colluded or conspired with Russian officials or organizations. Embassy 
personnel have reviewed the case file, the Guatemalan penal code, and 
have spoken to CICIG, the Public Ministry, the Migration Service, the 
Solicitor General's Office, the Guatemalan courts, and the Bitkovs' 
lawyers.

    Question 20. Would you provide my office with all information 
related to any investigation?

    Answer. The Department will continue to keep Congress informed on 
all CIGIG-related issues.

    Question 21. I am interested in more information on the case of 
Anthony Segura, a U.S. citizen who has been detained without trial in 
Guatemala for over three years. What is the status of his case?

    Answer. Anthony Segura remains in pre-trial detention. The case has 
not gone to trial and is pending the evidentiary hearing. An 
evidentiary hearing was most recently set for July 9, 2018, but this 
was postponed because the co-defendant, former Guatemalan Vice-
President Roxanna Baldetti, requested the judge's recusal. Future 
hearings are on hold pending a ruling on that request by the Court of 
Appeals.

    Question 22. What types of support has the Embassy in Guatemala 
City provided Mr. Segura?

    Answer. Embassy Guatemala City officials communicate and visit 
regularly with Mr. Segura and his father. Embassy officials have 
registered as observers and have attended almost every court hearing. 
Consular staff have conducted 10 prison visits and have attended 10 
court hearings, during all of which they held discussions with Mr. 
Segura. Embassy officials last visited Mr. Segura on July 4, 2018, and 
have been in contact by telephone since then. Heightened security 
concerns in prisons around Guatemala have recently limited Embassy 
prison visits. However, Embassy staff intends to visit him in the 
coming weeks.

    Question 23. Has the State Department investigated or produced any 
cables that assess the charges against Mr. Segura?

    Answer. The Embassy follows this case closely and reports any 
significant developments to the Bureau of Consular Affairs as needed.

    Question 24. Would you provide any reporting on the case--including 
by Ambassador Arreaga and previous U.S. Ambassador Todd Robinson--to my 
staff?

    Answer. The Department appreciates Congressional concerns and will 
continue to keep Congress informed on Mr. Segura's case. I understand 
that Congressional responses with requested case updates were sent to 
Senator Rubio's office most recently on July 5, 2018, and August 21, 
2018.

    Question 25. If confirmed, do you commit to working vigorously on 
behalf of American investment in Honduras in order to ensure that 
claims of corruption and confiscation in commercial disputes are 
resolved in neutral settings consistent with the rule of law?

    Answer. Support for U.S. investors and businesses operating 
overseas is a top priority for the Department. The U.S. Government 
engages in diplomatic dialogue with foreign governments aimed at 
improving the investment and business climates within those countries. 
If confirmed, I will make it a high priority to press Honduras to 
resolve disputes with U.S. persons and companies fairly and 
expeditiously, consistent with these priorities.

    Question 26. If confirmed, do you commit to objectively assessing 
the conditions placed on foreign assistance to Honduras?

    Answer. Yes, if confirmed, I will objectively assess conditions 
placed on foreign assistance to Honduras.

    Question 27. Mr. Palmieri, you were a Deputy Assistant Secretary of 
State in the Bureau of Western Hemisphere Affairs when the Obama 
administration reestablished relations with the Castro dictatorship in 
Cuba. What was your role in reestablishing relations with the Castros?

    Answer. As Deputy Assistant Secretary of State for Central America 
and The Caribbean in the Bureau of Western Hemisphere Affairs at that 
time, I had no responsibilities for relations with Cuba or the decision 
to reestablish diplomatic relations with the Cuban Government. As a 
commissioned career member of the United States Foreign Service my 
responsibility was, and still is, to faithfully execute the President's 
policy.

    Question 28. Mr. Palmieri, you were a Deputy Assistant Secretary of 
State in the Bureau of Western Hemisphere Affairs when the Obama 
administration reestablished relations with the Castro dictatorship in 
Cuba. Would you provide a timeline of events you participated in 
related to the reestablishment?

    Answer. The United States reestablished diplomatic relations with 
Cuba on July 20, 2015. At that time, as Deputy Assistant Secretary of 
State for Central America and The Caribbean in the Bureau of Western 
Hemisphere Affairs, I had no direct role in events related to the 
reestablishment of diplomatic relations with the Cuban Government. As a 
commissioned career member of the United States Foreign Service my 
responsibility was, and still is, to faithfully execute the President's 
policy.

    Question 29. Mr. Palmieri, you were a Deputy Assistant Secretary of 
State in the Bureau of Western Hemisphere Affairs when the Obama 
administration reestablished relations with the Castro dictatorship in 
Cuba. Were you supportive of improving relations with a dictatorship 
that had oppressed its people for more half a century?

    Answer. As Deputy Assistant Secretary of State in the Bureau of 
Western Hemisphere Affairs, my responsibility was, and still is, to 
faithfully execute the President's Policy. The current administration's 
Cuba policy, announced in June 2017, makes our continued support of 
democracy and human rights in Cuba, and the demonstration of solidarity 
with the Cuban people in the face of a repressive regime, primary 
objectives. The Department continues to call for the Cuban regime to 
end its enduring repression of its citizens.

    Question 30. Mr. Palmieri, you were a Deputy Assistant Secretary of 
State in the Bureau of Western Hemisphere Affairs when the Obama 
administration reestablished relations with the Castro dictatorship in 
Cuba. How do you view the Trump administration's changes to our Cuba 
policy?

    Answer. The administration's policy advances the interests of the 
United States and the Cuban people. On June 16, 2017, President Trump 
signed a National Security Presidential Memorandum, Strengthening the 
Policy of the United States Toward Cuba (NSPM), which seeks to improve 
respect for human rights, encourage the rule of law, foster free 
markets and free enterprise, and promote democracy in Cuba. As 
Principal Deputy Assistant Secretary of State in the Bureau of Western 
Hemisphere Affairs, my responsibility was, and still is, to faithfully 
execute the President's Policy.

    Question 31. Mr. Palmieri, you were the acting Assistant Secretary 
of State for the Bureau of Western Hemisphere Affairs in the aftermath 
of the attack on more than 20 State Department employees serving in 
Havana. Why did you take so long to form an accountability review board 
(ARB), an action that should have been automatic as soon as a State 
Department employee was injured?

    Answer. The authority to convene an accountability review board 
(ARB) lies with the Secretary of State. After assessing the information 
gathered through the ongoing investigations, the Secretary determined 
that the incidents met the ARB criteria, and on December 11, 2017, the 
Secretary decided to convene an ARB.

    Question 32. Mr. Palmieri, you were the acting Assistant Secretary 
of State for the Bureau of Western Hemisphere Affairs in the aftermath 
of the attack on more than 20 State Department employees serving in 
Havana. The State Department took several months to brief Congress on 
the situation and coordinating your schedule to come testify was 
extremely difficult. Do you view briefing Congress as one of your 
primary functions as the acting Assistant Secretary of State? Why did 
it take so long for you to brief Congress?

    Answer. I view briefing Congress as one of my primary functions as 
the acting Assistant Secretary of State, and it is my understanding 
that Congress was briefed initially on the situation in April 2017. It 
was my pleasure to testify before your Subcommittee about this matter 
on January 9, 2018. There continue to be gaps in our knowledge about 
these attacks, and I am committed to making sure Congress is briefed as 
the investigation continues.

    Question 33. Mr. Palmieri, you were the acting Assistant Secretary 
of State for the Bureau of Western Hemisphere Affairs in the aftermath 
of the attack on more than 20 State Department employees serving in 
Havana. Were mistakes made in how the Department handled the ARB?

    Answer. The first priority of the Department is always the safety, 
security, and well-being of its employees. The Department handled the 
convening of an ARB as facts emerged. While the Department first became 
aware of an increase in what was then thought to be Cuban harassment 
and some non-specific health complaints in late December 2016, it was 
not until months later, after highly specialized medical testing was 
performed and analyzed by experts, that the Department received 
confirmation of the health effects. The medical investigations continue 
to this day, and we still do not know who or what caused these medical 
symptoms. On December 11, 2017, after assessing the information 
gathered through the ongoing investigations, the Secretary determined 
that the incidents met the ARB criteria.

    Question 34. Mr. Palmieri, you were the acting Assistant Secretary 
of State for the Bureau of Western Hemisphere Affairs in the aftermath 
of the attack on more than 20 State Department employees serving in 
Havana. Do you believe that the Cuban regime was involved in the 
attacks?

    Answer. A thorough investigation is ongoing to determine the source 
and cause of these attacks. In the meantime, we have underlined 
repeatedly to the Cuban Government that it has a responsibility under 
the Vienna Convention on Diplomatic Relations to take all appropriate 
steps to prevent any attacks on our diplomats. There continue to be 
gaps in our knowledge about these attacks, and I am committed to making 
sure Congress is briefed as the investigation continues.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Francisco L. Palmieri by Senator Benjamin L. Cardin

    Question 1. Do you believe conditions in Honduras have improved to 
the extent that it is safe for these individuals to return home? If 
confirmed, how will you work to ensure those who return are not doing 
so at their own peril?

    Answer. As a part of its Temporary Protected Status (TPS) review, 
DHS decided on a delayed effective date of 18 months to permit an 
orderly transition, both for those returning home and for the Honduran 
Government. The phase-out period will provide time for TPS 
beneficiaries to arrange for their departure and for Honduras to 
prepare for the reception and reintegration of its citizens. Our 
embassy continues to strengthen Honduras' ability to reintegrate 
returned citizens, including TPS returnees, through U.S. foreign 
assistance programs that disrupt transnational criminal organizations, 
promote citizen security, reduce illegal immigration, and promote 
sustainable economic growth by addressing the underlying causes of 
insecurity, impunity, and lack of economic opportunity. If confirmed, I 
will redouble these efforts and encourage our Honduran counterparts to 
develop programs to reintegrate their nationals, including TPS 
returnees.

    Question 2. Do you believe a reevaluation of the administration's 
TPS Honduras decision is warranted?

    Answer. The authority to make decisions regarding TPS resides with 
the Secretary of Homeland Security, after consultation with appropriate 
agencies, including the Department of State. The Department of State is 
prepared to provide relevant information to DHS should it initiate a 
review of conditions in Honduras.

    Question 3. Does U.S. Government strategy towards Honduras and the 
region adequately address key drivers of migration?

    Answer. U.S. diplomatic and programmatic efforts under the U.S. 
Strategy for Central America aim to secure U.S. borders and protect 
U.S. citizens by addressing the security, governance, and economic 
drivers of illegal immigration and illicit trafficking in Honduras and 
the region. I understand U.S. assistance efforts in Honduras focus on 
supporting the Government's efforts to strengthen border controls, 
eliminate human smuggling and trafficking, foster economic growth, 
combat transnational criminal organizations, stem drug trafficking, 
strengthen the rule of law, and reduce corruption. If confirmed, I will 
seek to expand U.S. efforts and cooperation with the Government of 
Honduras to reduce illegal migration flows and promote a more secure 
and prosperous Honduras with transparent, accountable, and capable 
government institutions.

    Question 4. What more should the United States be doing in its 
diplomatic engagement and foreign assistance programming to address the 
root causes of migration?

    Answer. U.S. programs and engagement aim to secure U.S. borders and 
protect U.S. citizens by addressing the security, governance, and 
economic drivers of illegal immigration and illicit trafficking through 
the U.S. Strategy for Central America by enhancing regional economic 
opportunity, reducing insecurity and violence, and fighting impunity 
and corruption. Our assistance complements the Plan of the Alliance for 
Prosperity (A4P), the reform initiative of the Northern Triangle 
governments designed to stimulate the productive sector, develop 
opportunities for their people, improve public safety, enhance access 
to the legal system, and strengthen institutions. The Northern Triangle 
governments committed $5.4 billion to address these goals.
    If confirmed, I commit to advancing our partnership with the 
Honduran Government through U.S. programs and assistance that 
complement the A4P.

    Question 5. If confirmed, how will you work with the Honduran 
Government to ensure proper investigation and prosecution of crimes 
against human rights defenders?

    Answer. I understand the U.S. Government supports the development 
of the Honduran Government's human rights defender protection mechanism 
and provides technical assistance from highly qualified and experienced 
judicial and investigative experts to support the Honduran Government's 
investigations of violence against human rights defenders. If 
confirmed, I will continue support for such efforts and I will advocate 
for improved human rights conditions in Honduras. If confirmed, I will 
also continue to press the Honduran Government to hold accountable the 
perpetrators and intellectual authors of emblematic cases of violence, 
such as the 2016 murder of renowned environmental and indigenous rights 
defender Berta Caceres.

    Question 6. The Hernandez Government has taken largely superficial 
steps toward anti-corruption and transparency. How can U.S. diplomatic 
engagement, sanctions, and conditions on foreign assistance incentivize 
the Hernandez Government to improve its human rights record?

    Answer. Honduras continues to face serious challenges regarding 
corruption, impunity, and human rights. If confirmed, I will continue 
to prioritize these issues with the Honduran Government. I understand 
U.S. assistance to Honduras directly supports programs and institutions 
to address human rights in Honduras, such as impunity, public sector 
corruption, weak government institutions, and drug trafficking and 
transnational gang activities. If confirmed, I will continue to press 
for full accountability of Honduran institutions and I will also 
support U.S. assistance for Honduran efforts to strengthen the rule of 
law and build stronger, more professional government institutions. 
These efforts are critical to protecting human rights and reducing 
impunity.

    Question 7. How, if at all, is the U.S. embassy engaging on the 
Berta Caceres trial?

    Answer. I welcome all efforts to hold accountable and bring to 
justice those responsible for the murder of Berta Caceres and, if 
confirmed, I will continue to raise this case with Honduran 
authorities. The resolution of this case remains a high priority for 
the United States. Our Embassy has provided, and continues to offer, 
technical assistance from highly qualified and experienced judicial and 
investigative experts to support the Honduran Government. If confirmed, 
I will continue this support and I will press Honduran authorities to 
make every effort to bring to justice--within Honduras' own legal 
system--those responsible for the murder of Berta Caceres, including 
the perpetrators and intellectual authors.

    Question 8. What steps do you believe are necessary to foster 
societal reconciliation in the aftermath of the contested 2017 
elections?

    Answer. Honduras invited the United Nations to facilitate a 
national dialogue for reconciliation, and the United Nations is leading 
a series of meetings with the three leading political parties (National 
Party, Libre, and Liberal Party) to identify parameters for a potential 
national dialogue. This dialogue is vital to foster social 
reconciliation in the aftermath of the November 2017 elections. If 
confirmed, I will advocate for a robust national dialogue, the 
enactment of significant electoral reforms to strengthen confidence in 
Honduran institutions and bolster Honduran democracy, and a significant 
role for civil society in the process.

    Question 9. Do you believe the Hernandez Government intends to 
enact the electoral reforms recommended by the international 
observation missions from the European Union and the Organization of 
American States (OAS)?

    Answer. I share your concerns regarding the electoral 
irregularities identified by the OAS and EU observation missions. Those 
irregularities and the close election results highlight the need for a 
significant, long-term effort to heal Honduras's political divide and 
enact electoral reforms. The Honduran Government invited the United 
Nations to facilitate a national dialogue for reconciliation and to 
address the aftermath of the November 2017 elections. If confirmed, I 
will emphasize the need for the Honduran Government to advance a robust 
national dialogue and make much needed electoral reforms to minimize 
risks to future elections.

    Question 10. Do you believe the Honduran Government's repeated 
assurances that it intends to remove the military from domestic 
policing?

    Answer. If confirmed, I will reinforce the Department's long-
standing position that policing is best done by civilian police who are 
properly trained and equipped, and I will continue to support Honduran 
efforts to reform its national police. I understand the Department does 
not provide foreign assistance funds to Honduran military engaged in 
domestic policing. The Honduran Government is aware of this policy. 
U.S. foreign assistance is helping to develop a professional, 
accountable, and effective civilian police force that upholds the rule 
of law. I view this support as critical to the Honduran Government's 
efforts to professionalize and reform its police force. If confirmed, I 
will support U.S. assistance to strengthen law enforcement in Honduras.

    Question 11. I understand the military is now training military 
police on human rights, but given the military has its own human rights 
deficiencies, I am concerned that this training will not be enough to 
stop the abuses. We condition a lot of our aid to the Hondurans and 
some have called for the U.S. to halt all assistance to the Honduran 
security sector. What are your views on this?

    Answer. In accordance with U.S. law and Department policy, the 
State Department conducts Leahy vetting prior to furnishing assistance 
to foreign security force personnel and units. Pursuant to the Leahy 
law, the Department does not furnish assistance to any unit of the 
security forces of a foreign country if the Secretary of State has 
credible information that the unit has committed a gross violation of 
human rights. If confirmed, I will continue to uphold this meticulous 
vetting process.

    Question 12. In your view, is the Hernandez administration 
committed to combatting corruption?

    Answer. Yes, however, significant challenges remain in the fight 
against corruption in Honduras. The Honduran Government must actively 
support anticorruption efforts of the OAS Mission Against Corruption 
and Impunity in Honduras (MACCIH) to ensure accountability in Honduras. 
The United States has strongly and consistently supported MACCIH and 
considers its efforts, together with those of the Public Ministry, 
essential to strengthening adherence to the rule of law and combatting 
corruption in Honduras. If confirmed, I will support MACCIH and the 
Public Ministry in their mission to combat corruption and impunity in 
Honduras, and underscore in my engagement with all branches of the 
Honduran Government the importance of their collective action in the 
fight against corruption.

    Question 13. To what extent have the Honduran congress and 
judiciary been acting independently of the executive branch when they 
have taken steps to undermine MACCIH-backed reforms and investigations, 
including such actions as the Congress shielding themselves from 
prosecution and withholding funds?

    Answer. Article 4 of the Honduran constitution establishes that the 
Legislative, Executive, and Judicial branches of government are 
complementary and independent, with no branch playing a subordinate 
role to the others. We have seen instances this year in which the 
checks and balances have prevented one branch from taking action that 
could undermine Honduran institutions. For example, on April 3, 
President Hernandez vetoed March 20 reforms to the asset forfeiture law 
that would have limited asset seizures for public officials.
    President Hernandez has made clear his commitment to rooting out 
corruption and has demonstrated this commitment by consenting to the 
appointment of a new chief of mission for the Mission of Support 
Against Impunity and Corruption in Honduras (MACCIH), and the July 2018 
creation of a new policy on transparency, integrity, and the prevention 
of corruption, led by a new commissioner on transparency and integrity. 
The Attorney General and President of the Supreme Court have committed 
to participate in a working group the new commissioner will lead and 
have similarly demonstrated their commitment to fighting corruption 
through the creation of the Public Ministry's special anti-corruption 
unit and the establishment of anti-corruption courts with the specific 
mandate to oversee corruption cases.
    Corruption in Honduras is deeply rooted and the support of the 
international community is vital in helping the Honduran Government 
tackle the problem. If confirmed, I will make the fight against 
corruption and impunity in Honduras one of my top priorities.

    Question 14. To what extent will the Honduran Supreme Court's 
recent ruling on the constitutionality of the MACCIH impact the 
mission's ability to work alongside public prosecutors to investigate 
and prosecute corruption cases?

    Answer. A May 29 Supreme Court opinion declared constitutional the 
legislative decree that approved the agreement between the Government 
of Honduras and the Organization of American States that established 
the MACCIH, but questioned a subsequent agreement between the Public 
Ministry and the OAS allowing for collaboration between the Public 
Ministry's anticorruption unit and MACCIH investigators. The Attorney 
General issued a June 4 statement critical of the decision and made 
clear he plans to continue collaborating with MACCIH. On June 18, the 
Honduran Government announced the appointment of Dr. Luiz Antonio 
Marrey Guimaraes as the new Chief of Mission of the MACCIH. Guimaraes 
presented his credentials to Foreign Minister Aguero Lara on July 5 and 
has continued where his predecessor left off in strengthening MACCIH's 
role in supporting Honduras' efforts to combat corruption and impunity. 
Despite the setback caused by the departure of the previous 
spokesperson and the constitutional challenge, coordination between 
MACCIH and the Public Ministry has continued with corruption cases 
moving forward.

    Question 15. How likely is it that the Honduran Government will 
renew the MACCIH's mandate in 2020?

    Answer. The Department welcomed the Honduran Government's June 18 
appointment of a new Chief of Mission of the OAS Mission of Support 
Against Impunity and Corruption in Honduras (MACCIH), Dr. Luiz Antonio 
Marrey Guimaraes of Brazil. If confirmed, I will continue to work with 
the OAS and the Honduran Government to ensure Dr. Marrey Guimaraes is 
able to exercise authority over budgetary, personnel, and operational 
decisions. Following this important appointment, the Department 
underscored its appreciation to the Honduran Government and the OAS for 
reaffirming their ongoing collaboration and commitment to advancing 
MACCIH's mandate and fostering its future success. MACCIH has been 
instrumental in supporting Honduras's efforts to combat corruption and 
impunity and, if confirmed, I will underscore to the current and future 
administration in Honduras the importance of continued commitment to 
support MACCIH's vital work, to include the renewal of MACCIH's mandate 
in 2020.

    Question 16. What more can the United States do to train and 
support Honduran law enforcement efforts to prevent and prosecute 
homicides?

    Answer. Due in part to sustained U.S. capacity building and 
technical assistance, Honduras has made significant progress in 
addressing security issues and has reduced the homicide rate by 50 
percent since 2011 to 43 per 100,000 people. The Department provides 
technical assistance, training, and equipment to strengthen Central 
American law enforcement capacity to combat transnational criminal 
organizations (TCOs), seize drugs, combat gang violence, and build 
justice institutions strong enough to prosecute, convict, and imprison 
criminals. If confirmed, I will redouble these efforts and continue to 
support U.S. foreign assistance directed towards professionalizing 
Honduran law enforcement to prevent and prosecute homicides.

    Question 17. What can be done to change the culture of impunity 
that leads to such a high homicide rate?

    Answer. The Department provides technical assistance, training, and 
modest amounts of equipment to Honduran prosecutors, judges, and 
justice sector actors to support more effective, transparent, and 
accountable justice and law enforcement institutions. U.S. foreign 
assistance also helps to combat corruption and impunity, promote 
accountability, uphold the rule of law, and increase access to justice. 
Through sustained U.S. engagement and support, these Honduran entities 
continue to make progress in addressing issues of corruption and 
impunity. If confirmed, I will support these types of anti-corruption 
efforts in order to promote accountability and combat impunity in 
Honduras, including among government officials.

    Question 18. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The protection of human rights and advancement of democracy 
have been core elements of my work throughout my career. From my 
current position as the Acting Assistant Secretary, I have spoken out 
to defend democracy in Venezuela and Nicaragua and urged greater 
respect from human rights in Cuba and Mexico. I have met with human 
rights defenders from across the hemisphere and from my earliest tours 
of duty in my Foreign Service career, I have promoted and advanced 
these U.S. foreign policy priorities.
    I sought assignment as the Human Rights Officer in El Salvador 
during my second tour in the Foreign Service from 1988-1990. One of my 
principal contacts was Father Sergio Montes, a Jesuit priest and human 
rights professor. His brutal murder in the massacre of Jesuits at the 
Catholic Central American University in San Salvador in 1989 enshrined 
in me a commitment to always protect human rights defenders in every 
position I might encumber in subsequent postings overseas or in 
Washington. In El Salvador I would receive reports of arrests or 
missing individuals and then I would travel to specific detention 
facilities, such as the infamous Treasury Police jail and to Salvadoran 
military brigade bases. In some instances I was able to secure the 
immediate release of detainees or sometimes the detained or missing 
individual would be released later often in the middle of night. Too 
often, tragically, most would never be found.
    Later in my career, I served as the Office Director for the Near 
East and South Central Asia in the Bureau of Democracy, Human Rights 
and Labor. In this position, I directed the review and final editing of 
the annual human rights reports for all of the countries in those two 
geographic regions. We also developed grant solicitations and reviewed 
proposals to advance democracy and human rights issues in both regions, 
including, among many different initiatives, programs to advance 
women's political and legal rights in the Middle East and to improve 
the roles of political parties in the election process in Iraq.
    I will always speak out on the issue of human rights and democracy, 
which I firmly believe are core values to our foreign policy.

    Question 19. What are the most pressing human rights issues in 
Honduras? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Honduras? What do 
you hope to accomplish through these actions?

    Answer. Honduras continues to face serious human rights challenges 
and, if confirmed, I will continue to prioritize human rights issues. I 
understand U.S. assistance to Honduras directly supports programs and 
institutions to address human rights in Honduras, such as impunity, 
public sector corruption, weak government institutions, and drug 
trafficking and transnational gang activities. If confirmed, I will 
continue to partner with Honduran civil society and international non-
governmental organizations to monitor and follow up on alleged human 
rights abuses, including attacks on human rights defenders. If 
confirmed, I will also continue to press for full accountability of 
Honduran institutions to strengthen the rule of law and build stronger, 
more professional government institutions. These efforts are critical 
to protecting human rights and reducing impunity.

    Question 20. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Honduras in 
advancing human rights, civil society and democracy in general?

    Answer. Corruption and impunity pose significant challenges to 
ensuring the respect for human rights in Honduras. The Department held 
a bilateral human rights working group with the Honduran Government in 
April to collaborate on improving the human rights situation in 
Honduras. Issues addressed include strengthening governmental human 
rights institutions, working with international human rights partners 
and civil society, improving citizen security, combating corruption and 
impunity, and stemming outward migration. If confirmed, I will utilize 
mechanisms such as the bilateral human rights working group to urge the 
Honduran Government to uphold human rights and demonstrate a clear 
commitment to addressing corruption, consistent with its international 
commitments and legal obligations.

    Question 21. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Honduras? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will continue to partner with human rights, 
civil society, and other NGOs in the United States and with local human 
rights NGOs in Honduras to monitor and follow up on alleged human 
rights abuses. The Department is in frequent contact with NGOs, human 
rights officials, concerned citizens, security forces, and government 
officials to request and receive information about the human rights 
situation in Honduras.
    In accordance with U.S. law and Department policy, the Department 
of State conducts Leahy vetting prior to furnishing assistance to 
foreign security force personnel and units. Pursuant to the Leahy law, 
the Department does not furnish assistance to any unit of the security 
forces of a foreign country if the Secretary of State has credible 
information that the unit has committed a gross violation of human 
rights. If confirmed, I will continue to uphold this meticulous vetting 
process.

    Question 22. Will you and your embassy team actively engage with 
Honduras to address cases of key political prisoners or persons 
otherwise unjustly targeted by Honduras?

    Answer. The Honduran Government must respect the right of all 
citizens to peacefully express their political beliefs openly, freely, 
and without fear of persecution. If confirmed, I will actively engage 
with the Honduran Government to address cases of persons unjustly 
targeted by the Government.

    Question 23. Will you engage with Honduras on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I commit to engaging with the Honduran 
Government on issues of human rights, civil rights, and governance.

    Question 24. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 25. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 26. Do you or do any members of your immediate family have 
any financial interests in Honduras?

    Answer. Neither my immediate family nor I have any financial 
interests in Honduras.

    Question 27. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I look forward to leading the team of U.S. 
and Honduran nationals at Embassy Tegucigalpa and to tapping the unique 
and diverse talents each person brings to advance our bilateral 
relationship with Honduras and to promote U.S. foreign policy 
objectives. At the State Department's core are its people. The 
Department is committed to fostering a workforce that reflects the 
diverse people it represents. Diversity not only enhances our 
effectiveness but also promotes a workplace culture that values the 
efforts of all members and enhances the professional experience of our 
valued public servants. The Department's diversity efforts are outlined 
in its 2016 Diversity and Inclusion Strategic Plan. If confirmed, I 
will prioritize a variety of training opportunities, mentoring, and 
career development programs to ensure employees have the skills 
necessary for current and future work assignments.

    Question 28. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The State Department is committed to equal employment 
opportunity (EEO) and ensuring the Department's work environment is 
free from prohibited discrimination and harassment in all phases of 
employment--including hiring, evaluation, promotion, and training. This 
includes improving and enhancing mentorship programs, expanding 
outreach to managers who make hiring decisions, and encouraging 
collaboration with external partners. If confirmed, I will strongly 
communicate the Department's EEO policies in my mission and ensure they 
are followed. If confirmed, I will also take advantage of the variety 
of programs the Department offers to help supervisors work with a 
multicultural staff.

    Question 29. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Honduras 
specifically?

    Answer. Pervasive corruption and poor governance erode prosperity 
and undermine security in this region and around the world. Improving 
democratic governance, strengthening institutions, and tackling 
corruption are among the most urgent challenges that countries like 
Honduras face. The political impunity, corruption, weak institutions, 
and lack of transparency that are common in Central America also allow 
for permissive environments in which transnational criminal 
organizations (TCOs) thrive. Corruption strains a state's ability to 
address complex security, economic, and governance challenges--the 
interrelated root causes that drive irregular migration toward the 
United States. It undermines the effectiveness of democratic 
institutions. If confirmed, I will continue to impress upon the 
Government of Honduras the importance of addressing corruption and 
impunity.

    Question 30. What is your assessment of corruption trends in 
Honduras and efforts to address and reduce it by that government?

    Answer. The United States has strongly and consistently supported 
the OAS Mission Against Corruption and Impunity in Honduras (MACCIH) 
since it began operations in April 2016, and considers its efforts, 
together with those of the Public Ministry, essential to strengthening 
rule of law and combatting corruption in Honduras. MACCIH officials 
continue to pursue a list of high-profile corruption cases, working 
together with the Honduran Government to prevent, investigate, and 
punish acts of corruption. If confirmed, I will continue our efforts to 
support MACCIH and the Public Ministry in their important work.

    Question 31. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Honduras?

    Answer. In addition to my commitment to continue our support for 
MACCIH, I understand the Department also provides technical assistance, 
training, and modest amounts of equipment to Honduran prosecutors, 
judges, and other justice sector actors. U.S. assistance also seeks to 
support more effective, transparent, and accountable judicial 
institutions; combat corruption and impunity; promote accountability; 
uphold the rule of law; and increase access to justice. These efforts 
also promote Honduran adherence to its international legal obligations 
and commitments, including the Inter-American Convention Against 
Corruption. If confirmed, I will continue to support these types of 
anti-corruption and good governance efforts to promote accountability 
and combat corruption and impunity in Honduras, particularly among 
government officials.

                               __________


     Responses to Additional Questions for the Record Submitted to 
               Kevin Sullivan by Senator Robert Menendez

    Question 1. If confirmed, what steps will you personally take to 
ensure accountability for human rights abuses in Nicaragua?

    Answer. The administration has stated since the onset of the April 
crisis that those responsible for committing human rights violations 
and abuses must be held accountable. If confirmed, I will continue to 
work with colleagues from the State Department, the interagency, the 
international community, and Congress to support full, independent 
investigations of human rights abuses in Nicaragua, such as those 
conducted by the Inter-American Human Rights Commission. The 
administration will employ all the tools at our disposal, including 
sanctions, to promote accountability for those abuses as well as to 
achieve the ultimate aim of a democratic Nicaraguan Government that 
ensures full respect for human rights and fundamental freedoms.

    Question 2. Given that the Trudeau Government and the European 
Union both have targeted sanctions mechanisms similar to the Global 
Magnitsky Act, will you work with our allies to ensure that they join 
us in deploying this powerful tool?

    Answer. Multilateral action is key to our engagement strategy on 
Nicaragua. We have engaged with like-minded partners such as Canada and 
the European Union to encourage them to implement their own sanctions 
and visa restrictions policies against Nicaraguan officials. If 
confirmed, I will continue to work with those partners in holding 
accountable corrupt actors or those who abuse human rights.

    Question 3. What additional sanctions would you propose at this 
time? Which kind of sanctions should the U.S. approve for Nicaraguan 
officials and who should they target?

    Answer. The continued violence and intimidation campaign 
perpetrated by the Nicaraguan Government and its affiliates against its 
people is unacceptable and must cease. Those responsible for killings, 
arbitrary detentions, and other human rights abuses and violations must 
be held accountable. In general, I cannot comment on the status of 
sanctions investigations or decisions to designate a particular person, 
but if confirmed, I will be committed to leveraging all appropriate 
tools to promote human rights in Nicaragua.

    Question 4. How can the U.S. support multilateral efforts to uphold 
democracy and human rights in Nicaragua?

    Answer. The United States will continue to advance our commitment 
to the promotion and protection of human rights and fundamental 
freedoms for the people of Nicaragua. If confirmed, I will work with 
partners in multilateral and regional fora including the Organization 
of American States, independent mechanisms of the Inter-American Human 
Rights System, and the United Nations, including the UNGA third 
committee, which is focused on human rights issues, to advance the 
effective promotion and protection of human rights and fundamental 
freedoms in Nicaragua.

    Question 5. The U.S. should support the work of human rights bodies 
like the IACHR and the OHCHR in Nicaragua. How would you do this as an 
ambassador?

    Answer. The United States will continue to advance our commitment 
to the promotion and protection of human rights and fundamental 
freedoms for the people of Nicaragua. If confirmed, I will use a wide 
range of tools to advance respect for human rights, including working 
with democratic partners; civil society; and international and regional 
organizations including the Organization of American States, 
independent mechanisms of the Inter-American Human Rights System, and 
the United Nations.

    Question 6. If confirmed, what steps will you take to advance a 
negotiated solution to Nicaragua's political crisis--one which includes 
a commitment to early elections, as has been proposed by civil society?

    Answer. The only obstacle to progress towards early, free, and fair 
elections is President Ortega's unwillingness thus far to negotiate in 
good faith the legitimate issues the Catholic Church and other civil 
society leaders have put on the table. If confirmed, I will continue to 
call on President Ortega and his government to agree to hold early, 
free and fair elections with international observation, which would 
provide a peaceful, sustainable path to resolve Nicaragua's current 
crisis. The United States, other members of the international 
community, and most importantly the people of Nicaragua have expressed 
support for dialogue mediated by the Catholic Church, and I will 
continue to consult closely with the Council of Bishops and other civil 
society leaders, and political actors including the Government of 
Nicaragua concerning a way forward. If confirmed, I will urge the 
Nicaraguan Government to immediately cease its repression and release 
those who have been arbitrarily detained to start creating the 
conditions necessary for good faith dialogue; additional sanctions may 
be necessary to increase the costs of continuing this repression. I 
will also work closely with Department colleagues, including the U.S. 
Missions to the OAS and the U.N., to discuss potential international 
support for dialogue.

    Question 7. How can the U.S. pressure the Government of President 
Daniel Ortega to meaningfully engage in the national dialogue?

    Answer. The Nicaraguan Government-instigated attacks and threats 
against peaceful protestors and the general population are unacceptable 
and must cease. An end to violence is foremost among the conditions 
necessary to resume good faith negotiations for a democratic and 
peaceful path forward for all Nicaraguans. We are urging the Nicaraguan 
Government to immediately cease all government-sponsored violence. We 
will continue working with diplomatic partners and international 
organizations, including the OAS, to strongly condemn human rights 
violations and abuses by the Ortega Government and its supporters, and 
call for early, free, fair, and transparent elections as the best path 
back to democracy and respect for human rights in Nicaragua.
    The United States can pressure the Government of President Ortega 
to meaningfully engage in the national dialogue through a number of 
tools. The Department continues to help expose and promote 
accountability among those responsible for the violence and 
intimidation campaign by: imposing visa restrictions on certain 
Nicaraguans responsible for or complicit in human rights abuses or 
undermining democracy in Nicaragua; placing financial sanctions under 
Executive Order 13818 which builds upon the Global Magnitsky Human 
Rights Act; and working closely with our regional partners to maintain 
international monitoring of the situation and promote democratic 
solutions.

    Question 8. What is your assessment of the relationship between 
Nicaragua and Russia?

    Answer. Russia has provided security sector assistance to Nicaragua 
and remains Nicaragua's security partner of choice. Russian state news 
services like RT also broadcast in Spanish on Nicaraguan cable. We will 
remain vigilant regarding Russian involvement in the security sector 
and any effort to expand Russian-sponsored disinformation campaigns, 
including in Nicaragua. If confirmed, I will also communicate publicly 
and privately the advantages of partnership with the United States in 
the security sector and beyond.

    Question 9. If confirmed, what efforts will you take to defend 
address growing cooperation between Nicaragua and Russia, and the 
challenges that it poses to U.S. interests?

    Answer. The Department of State pays close attention to Russian 
activities around the world, including in Nicaragua. I regularly 
discuss these issues with colleagues in the Department of State and the 
intelligence community. If confirmed, I will continue to prioritize 
monitoring Russian activity in Nicaragua and work to prevent it from 
harming U.S. interests. I will also communicate publicly and privately 
the advantages of partnering with the United States in addressing 
Nicaragua's security and other challenges.

    Question 10. What is your assessment of the role of the Nicaraguan 
military to date and, if confirmed, how would you direct the U.S. 
Embassy in Managua to engage with Nicaragua's military?

    Answer. The Nicaraguan military to date has sought to minimize its 
direct involvement in the ongoing crisis and has kept a low public 
profile; it continues to protect Nicaragua's borders and critical 
infrastructure in accordance with its constitutional mandates. If 
confirmed, I will pursue limited cooperation with the military on 
issues of U.S. national security, such as counter-narcotics, as 
appropriate and in accordance with any assistance restrictions, bearing 
in mind the evolution of the current crisis, and seek to maintain 
constructive relationships and open lines of communication with 
military leaders.

    Question 11. How can the U.S. pressure Ortega specifically to 
dismantle the armed gangs that act in coordination with police?

    Answer. If confirmed, I will continue the administration's efforts 
to hold accountable those responsible for the abuses committed both by 
the National Police and by state-sponsored armed groups, and to deter 
further abuses. The administration has imposed financial sanctions 
against certain Nicaraguan Government officials overseeing the national 
police and its armed affiliates' activities. The Department continues 
to apply visa restrictions on certain officials participating in human 
rights violations and abuses against the Nicaraguan people. The United 
States, in coordination with international partners, will continue to 
employ the various tools at its disposal to dissuade the Ortega 
Government from supporting or encouraging armed groups to supplement 
police repression of the population.

    Question 12. If confirmed, how will you work to address officials 
in the Ortega Government profiting off of funds stolen from Nicaraguan 
citizens?

    Answer. I am very concerned corrupt Nicaraguan officials are 
stealing millions of dollars on an annual basis from the Nicaraguan 
people. Since December 2017, the administration has imposed financial 
sanctions on certain Ortega Government officials who are responsible 
for, complicit in, or who directly or indirectly engaged in, human 
rights abuses or corruption. If confirmed, I will work with colleagues 
from the State Department, the interagency, the international 
community, and Congress to strengthen the capacity of Nicaragua media 
and civil society actors to detect and expose official corruption, and 
employ other tools at U.S. disposal to discourage and counter 
corruption in Nicaragua.

    Question 13. If confirmed, how would you advocate that the U.S. 
Government respond to these growing challenges?

    Answer. As the recent increase of Nicaraguans fleeing into Costa 
Rica shows, the current situation in Nicaragua is a regional issue. If 
confirmed, I commit to closely coordinating with U.S. Ambassador to 
Costa Rica Sharon Day, and others in the region, as appropriate.
    The United States will continue to engage the Costa Rican 
Government, a strong partner with a history of positive, constructive 
engagement on migration issues. The Costa Rican Government is committed 
to building institutional capacity to improve its ability to react to 
future migrant flows. The Government possesses both the political will 
and experience to handle migrant-related crisis when they occur. While 
the recent and substantial flow of Nicaraguans entering Costa Rica 
presents an enormous challenge to the Costa Rican Government, our 
partners are working with it to help build capacity.
    UNHCR is one of our primary partners working to mitigate the impact 
of Nicaraguans fleeing to neighboring countries. Since FY 2017, the 
Bureau of Population, Refugees, and Migration (PRM) has contributed 
over $40 million to UNHCR and the International committee of the Red 
Cross (ICRC) for its Americas operations, which includes support for 
activities in Costa Rica. PRM has also contributed an additional 
$350,000 to UNHCR this year for emergency needs related to the 
Nicaraguan influx into Costa Rica. PRM continues to assess the 
situation and the need for additional humanitarian resources.

    Question 14. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As Interim U.S. Permanent Representative at the OAS, and 
subsequently as Deputy Permanent Representative, I built support for 
resolutions to hold the Venezuelan Government to account for its 
serious violations of human rights as well as it rupture of the 
country's constitutional order. Under my leadership, our Mission helped 
increase our like-minded coalition from 14 member states in May 2016 to 
around 20 today, bringing a number of influential Caribbean states on 
board despite major diplomatic and financial pressure from Venezuela. 
This larger coalition allowed the Permanent Council to take action on 
the situation in Venezuela for the first time. The resolution passed by 
the 2018 OAS General Assembly made clear that the OAS viewed 
Venezuela's May 20 sham elections as illegitimate. I also worked 
closely with U.S. Ambassador to the OAS Carlos Trujillo in developing a 
similar coalition in the Permanent Council to address the grave human 
rights violations in Nicaragua. We passed a hard-hitting resolution on 
July 18 that called for an end to state-sponsored violence and a return 
to good-faith negotiations on democratic reforms. In addition, our 
Mission was instrumental in advocating a role for, and access by, the 
Inter-American Commission on Human Rights (IACHR) in the monitoring and 
investigation of the violent repression of peaceful protests in 
Nicaragua. Finally, I advocated successfully for providing adequate 
funding for the IACHR in the OAS budget and for broadening member state 
support for crucial OAS electoral observation missions and its anti-
corruption mechanisms.
    I also actively promoted human rights and democracy during two 
previous assignments in Africa. As Political Economic Counselor in 
Ethiopia, I pressed successfully for freeing thousands of prisoners 
held by the Ethiopian Government in 2006 and helped organize a group of 
prominent citizens to build public support for more democratic rule. 
Over the ensuing decade, Ethiopia has moved gradually in that 
direction. As Deputy Chief of Mission in Malawi, I championed USAID 
funding for civil society electoral observation over the objections of 
the Government in 2009. The Government ultimately embraced the findings 
of that observation effort, which helped ensure a peaceful and 
transparent conclusion to a tense electoral process.

    Question 15. What issues are the most pressing challenges to 
democracy or democratic development in Nicaragua? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The most pressing human rights challenges to democracy and 
democratic development in Nicaragua are President Daniel Ortega's use 
of security forces and armed thugs to employ lethal force against 
peaceful protestors, carry out extra-judicial killings, and detain and 
torture political opponents. The only crime many of these victims have 
committed has been to speak up for democratic reforms or, in some 
cases, simply provide water or medical services to those who do. More 
than 2,000 Nicaraguans have been injured; more than 350 have been 
killed in the current crisis.
    President Ortega's has so far been unwilling to negotiate in good 
faith on the legitimate issues that the Catholic Church and other civil 
society leaders have put on the table, including the steady erosion of 
Nicaragua's democratic institutions and the rule of law. Rather than 
addressing these concerns, which have been validated by the OAS, Ortega 
has unleashed further state-sponsored violence that aims to censor, 
discredit, and destroy the independent press and the Catholic Church. 
Police and armed, government-backed mobs have attacked independent news 
stations, parishes, and church properties and physically assaulted 
journalists, bishops, and priests.

    Question 16. What steps will you take--if confirmed--to support 
democracy in Nicaragua? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will work with the international community 
to hold responsible those who have carried out vicious attacks against 
peaceful protestors. I will help the Department of State continue to 
expose and hold accountable those responsible for the violence and 
intimidation campaign by imposing visa restrictions on Nicaraguans 
responsible for or complicit in human rights abuses or undermining 
democracy in Nicaragua, placing financial sanctions under the Global 
Magnitsky Human Rights Act, and working closely with our regional 
partners to maintain international monitoring of the situation and 
promote democratic solutions. Through these actions, the United States 
and its partners would continue to apply pressure to President Ortega, 
strengthen democratic voices, and promote democratic solutions.
    In addition to maintaining pressure on the Nicaraguan Government to 
cease its repression and negotiate in good faith, I would, if 
confirmed, continue U.S. support to civil society groups pursuing a 
peaceful, democratic solution to the current crisis, including reforms 
to address the serious erosion of democratic institutions and the rule 
of law in recent years. Impediments may include President Ortega's 
unwillingness to address these issues and ongoing pressure on 
independent media, civil society and political leaders. Strong support 
from the United States and other members of the international community 
will play a crucial role in achieving a return to full democracy in 
Nicaragua.

    Question 17. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Strengthening the capacity of civil society, human rights 
defenders, independent media, investigative journalists, youth, and 
other local stakeholders to promote and defend fundamental freedoms and 
democratic governance, along with efforts to hold the Ortega regime 
accountable for human rights violations, are among our key priorities. 
In addition to efforts to respond to the immediate needs of local 
partners during the current crisis, the State Department and USAID are 
coordinating closely to prepare for an eventual democratic transition 
and stand ready to support substantive democratic reforms when more 
permissive circumstances arise.

    Question 18. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Nicaragua? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. If confirmed, I commit to meeting with civil society 
members, human rights, and other non-governmental organizations in the 
United States and with local human rights NGOs, and other members of 
civil society in Nicaragua.T
    he steps I will take, if confirmed, to proactively address efforts 
to restrict or penalize NGOs and civil society via legal or regulatory 
measures include, but are not limited to: 1) supporting Department use 
of visa restrictions on Nicaraguans responsible for or complicit in 
human rights abuses or undermining democracy in Nicaragua to bar their 
entry into the United States; 2) supporting USAID and Department 
programs focused on responding to needs on the ground--such as ongoing 
support for human rights and democracy activists as well as independent 
journalists; and 3) organizing periodic stakeholder meetings with NGO 
program implementers to facilitate coordination among implementers and 
identify potential areas for collaboration.

    Question 19. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes, if confirmed, I commit to meeting with democratically 
oriented political opposition figures and parties. I will lead the 
Mission in continuing to take steps to increase the ability of 
Nicaraguan citizens to engage in democratic governance. This is 
achieved by strengthening the capacity of civil society, human rights 
defenders, independent media, and youth to promote and defend democracy 
and transparent and accountable governance. Political support from the 
international community and targeted assistance could help opposition 
parties learn how to offer credible, competitive alternatives for the 
Nicaraguan people. If confirmed, I will advocate for access and 
inclusivity for women, minorities, and youth within political parties.

    Question 20. Will you and your embassy team actively engage with 
Nicaragua on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Nicaragua?

    Answer. A free and active press is an integral part of a healthy 
democracy. The Department of State is committed to supporting efforts 
to promote freedom of the press. In Nicaragua, we remain deeply 
concerned about government censorship of, and aggression toward, 
independent media and harassment of journalists trying to report on the 
protests. If confirmed, I will work with my embassy team to support 
press freedom and freedom of expression in Nicaragua. The U.S. Embassy 
in Managua will continue to engage directly with independent local 
media in Nicaragua and build their capacity.

    Question 21. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The Department of State is concerned by any efforts to 
disseminate disinformation and anti-U.S. propaganda in Nicaragua and 
the region. If confirmed, I will work with my embassy team to promote 
accurate messages about the United States and other nations in the 
pursuit of freedom, democracy, prosperity, and security in the Western 
Hemisphere. One of the best defenses against disinformation is a free 
and transparent news media environment. If confirmed, I would work to 
monitor and counter any such efforts in Nicaragua, including by 
encouraging digital-media literacy, independent journalism, and 
supporting civic-tech groups and other local stakeholders to inform the 
public and stem the malign spread of disinformation.

    Question 22. Will you and your embassy teams actively engage with 
Nicaragua on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, if confirmed, I will actively engage, and direct the 
Embassy staff to actively engage, with Nicaragua on the right of labor 
groups to organize, including independent trade unions.

    Question 23. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Nicaragua, no 
matter their sexual orientation or gender identity? What challenges do 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Nicaragua? What specifically will you commit to do to help LGBTI people 
in Nicaragua?

    Answer. Yes, if confirmed, I will defend the human rights and 
dignity of all people in Nicaragua, no matter their sexual orientation 
or gender identity. As Secretary Pompeo affirmed in his statement on 
the International Day Against Homophobia, Transphobia and Biphobia, 
``the United States stands with people around the world in affirming 
the dignity and equality of all people regardless of sexual 
orientation, gender identity or expression, or sex characteristics. 
Human rights are universal, and LGBTI people are entitled to the same 
respect, freedoms, and protections as everyone else.''
    employment, although studies showed most discrimination occurs at 
the family level. If confirmed, I will promote the inclusion of LGBTI 
persons and support the Department's use of public and private actions 
to counter violence and discrimination against LGBTI persons. This 
includes diplomatic outreach through bilateral and multilateral 
channels, offering emergency assistance to LGBTI persons and 
organizations at risk, and imposing visa restrictions and economic 
sanctions, as appropriate, against those who violate their human 
rights.

    Question 24. Will you commit to supporting USAID personnel, 
programs, and implementers in Nicaragua?

    Answer. I highly value the unique and essential contributions of 
USAID to accomplishing U.S. goals. Yes, if confirmed, I will commit to 
supporting USAID personnel, programs, and implementers in Nicaragua.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Kevin Sullivan by Senator Marco Rubio

    Question 1. I was extremely disappointed by El Salvador's decision 
this week to sever its diplomatic recognition of Taiwan, a thriving 
democracy with a prosperous economy, in favor of China. One tool that 
the U.S. Government has at its disposal to influence countries like 
Nicaragua to maintain their relationships with Taiwan is foreign 
assistance. If confirmed, do you commit to discussing consistently with 
the host government the importance the U.S. Government places on their 
continued relations with Taiwan?

    Answer. If confirmed, I commit to discussing with the Nicaraguan 
Government the importance the U.S. Government places on Nicaragua's 
continued relations with Taiwan and on cross-Strait stability. China's 
efforts to unilaterally alter the status quo undermine the framework 
that has enabled peace, stability, and development for decades. If 
confirmed, I will express to the Government of Nicaragua our great 
disappointment with countries that fail to consider this critical 
factor in the decision to switch diplomatic recognition and destabilize 
the delicate balance in the Taiwan Strait. Consistent with the Taiwan 
Relations Act, the United States is gravely concerned with any effort 
to determine the future of Taiwan by other than peaceful means, 
including by boycotts or embargoes. The United States will continue to 
support Taiwan as it seeks to expand its already significant 
contributions to addressing global challenges, and as Taiwan resists 
efforts to constrain its appropriate participation on the world stage.
    If confirmed, I will also make clear to Nicaragua China's financing 
practices can come at a steep price for recipient countries in terms of 
the negative effects on local labor and environmental conditions, debt 
sustainability, and the rule of law. I will do all I can to prevent 
Nicaragua from switching diplomatic recognition from Taiwan to China. 
Such flips are often made with corrupt enticements and promises of 
economic development that promote the interests of China over those of 
the host country.

    Question 2. If confirmed, would you support cutting foreign 
assistance for severing diplomatic recognition for Taiwan?

    Answer. Taiwan is a democratic success story, a reliable partner, 
and a force for good in the world. China's efforts to alter 
unilaterally the status quo in the Taiwan Strait are harmful to the 
targeted countries and to the region, and those efforts also decrease 
stability. If confirmed, I will underscore to Nicaragua the importance 
of cross-Strait stability to the United States and express our great 
disappointment with countries that fail to consider this critical 
factor in the decision to switch diplomatic recognition and destabilize 
the delicate balance in the Taiwan Strait.
    The President has been clear that countries receiving U.S. taxpayer 
money should support the national security interests of the United 
States. We have a thorough interagency process to evaluate assistance 
to foreign governments, and, if confirmed, I would rely on the 
decisions made through this process.

    Question 3. On July 16, the State Department released a statement 
condemning the Ortega regime's violence and called declared that 
``early, free, fair, and transparent elections are the best path back 
to democracy and respect for human rights in Nicaragua.'' It also noted 
that there was a ``widespread call among Nicaraguans for early 
elections'' and stated that ``The United States believes early 
elections represent a constructive way forward.'' How do you assess the 
situation in Nicaragua?

    Answer. Over recent months, more than 300 Nicaraguans have been 
killed, hundreds have been detained and remain missing, and thousands 
have fled the country. While violent clashes in the streets have 
diminished in recent weeks, the Ortega Government, and armed groups 
loyal to it, continue to intimidate and arbitrarily detain hundreds of 
individuals. Attacks and threats against peaceful protestors and the 
general population, including clergy, are unacceptable, and must cease. 
Those responsible for killings and other human rights abuses and 
violations must be held accountable.
    The framework for national dialogue is already in place. The only 
obstacle to progress is President Ortega's unwillingness so far to 
negotiate in good faith the legitimate issues that the Catholic Church 
and other civil society leaders have put on the table in the Nicaraguan 
church-led dialogue.
    Question 4. How can the U.S. Government help defuse the situation?

    Answer. The U.S. Government continues to call on the Nicaraguan 
Government to immediately cease all government-sponsored violence. We 
are calling for early, free, and fair elections with credible domestic 
and international electoral observation.
    The Department continues to help expose and hold accountable those 
responsible for the violence and intimidation campaign by: imposing 
visa restrictions on Nicaraguans responsible for or complicit in human 
rights abuses or undermining democracy in Nicaragua; placing financial 
sanctions under the Global Magnitsky Human Rights Act; and working 
closely with our regional partners to maintain international monitoring 
of the situation and promote democratic solutions.

    Question 5. Do you believe that early elections are the only 
legitimate way forward at this point?

    Answer. Yes, I believe that a sustainable solution to the ongoing 
crisis can be found only through early, free and fair elections with 
independent international observation, through which the Nicaraguan 
people can freely decide their country's future. The only obstacle to 
progress is President Ortega's unwillingness so far to negotiate in 
good faith the legitimate issues that the Catholic Church and other 
civil society leaders have put on the table. We continue to call on 
President Ortega and his government to do so.

    Question 6. Nicaragua is clearly in dire need of support for 
democracy, human rights, and the rule of law, which we can provide 
through foreign assistance. In what areas would foreign assistance be 
most effective?

    Answer. The Department of State and USAID are coordinating closely 
to respond to the immediate needs of local partners during the current 
crisis, and to prepare for an eventual democratic transition should the 
people of Nicaragua succeed in their calls for early, free, and fair 
elections.
    USAID and State-funded democracy programs are designed to increase 
the ability of Nicaraguan citizens to participate effectively in 
democratic governance. Through foreign assistance we can strengthen the 
capacity of civil society, human rights defenders, independent media, 
and youth to defend democratic institutions, and promote more 
transparent and accountable governance.

    Question 7. How would foreign assistance help achieve the State 
Department's goals in Nicaragua?

    Answer. Foreign assistance can help to strengthen civil society and 
democratic institutions--both important U.S. objectives in Nicaragua. 
The Department of State and USAID are coordinating closely to respond 
to the immediate needs of local partners during the current crisis, and 
to prepare for an eventual democratic transition should the people of 
Nicaragua succeed in their call for early, free, and fair elections, 
which the United States has consistently supported.
    Targeted foreign assistance could also contribute to progress on 
other key U.S objectives in Nicaragua, including improved citizen 
security and inclusive economic growth, when political conditions 
permit.

    Question 8. If confirmed, do you intend to advocate within the 
State Department for increased foreign aid for Nicaragua? If yes, what 
types?

    Answer. If confirmed, I will advocate for increased foreign aid 
should more permissive circumstances arise that enable the State 
Department and USAID to support comprehensive democratic reform to 
address the erosion of the rule of law in recent years. There may also 
be additional opportunities to support inclusive economic growth and 
deepen cooperation on security issues.

    Question 9. Do you think it's important for an ambassador or 
embassy officials to meet with civil society in addition to interfacing 
with the host government?

    Answer. Yes, I believe it is crucial for the Ambassador and embassy 
officials to maintain regular contact with--and support for--a wide 
range of civil society groups and human rights advocates.

    Question 10. If confirmed, do you commit to meeting consistently 
with civil society groups, including non-violent members of the 
opposition?

    Answer. Yes, if confirmed, I commit to meeting consistently with a 
wide range of Nicaraguan civil society groups, including non-violent 
members of the opposition, and human rights advocates.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Kevin Sullivan by Senator Benjamin L. Cardin

    Question 1. We discussed Temporary Protected Status briefly at your 
hearing. I remain deeply concerned about the approximate 5,300 
Nicaraguans who will be forced to return to Nicaragua in early 2019 
because of the Trump administration's decision, contrary to the 
recommendation from Embassy Managua that TPS should be extended for a 
variety of factors. Do you believe a reevaluation of the 
administration's TPS Nicaragua decision is warranted given the unrest 
and violence occurring in the country?

    Answer. The authority to make decisions regarding TPS resides with 
the Department of Homeland Security (DHS), after consultation with 
appropriate agencies, including the Department of State. On November 6, 
2017, DHS announced the decision to terminate TPS for Nicaragua, with a 
delayed effective date of 12 months to allow for an orderly transition. 
Nicaraguan TPS beneficiaries are authorized to remain in the United 
States through January 5, 2019, at which time they will revert to the 
immigration status they had before being granted TPS or any other 
status they subsequently acquired, unless that status has otherwise 
expired. Those who have no other status may apply or be petitioned for 
any other immigration benefits for which they may be independently 
eligible.
    The Department of State is prepared to provide relevant country 
conditions information on Nicaragua to Secretary Nielsen should she 
initiate a review of conditions in Nicaragua.

    Question 2. The protests in Nicaragua that began as an uprising 
against cuts to social welfare programs have evolved into Nicaraguans 
from all walks of life taking to the streets to challenge President 
Ortega's authoritarian policies and control of government institutions. 
What does this unique political moment say about the future of 
Nicaragua as a country and its path forward?

    Answer. I have witnessed the deeply troubling developments in 
Nicaragua over recent months, as peaceful protests over changes to 
pensions quickly transformed into a much broader public repudiation of 
the Ortega Government. Nation-wide demonstrations were fueled by anger 
over violent repression that had taken the lives of demonstrators, as 
well as by deep resentment over the steady erosion of Nicaragua's 
democratic institutions.
    The people of Nicaragua have expressed their support for dialogue 
mediated by Catholic Church leaders. Sustainable solutions can only be 
found through early, free, and fair elections with international 
observation, through which the Nicaraguan people can freely decide 
their nation's destiny.

    Question 3. How can the United States play a constructive role in 
ensuring that any resolution to the political crisis promotes human 
rights, political inclusivity, and transparency for the Nicaraguan 
people?

    Answer. If confirmed, I will urge the Nicaraguan Government to 
immediately cease its repression and release those who have been 
arbitrarily detained. Those responsible for these abuses and violations 
must be held accountable. The United States, other members of the 
international community, and most importantly the people of Nicaragua 
have expressed support for dialogue mediated by the Catholic Church.
    If confirmed, I will ensure the U.S. Government maintains regular 
contact with and support for a wide range of Nicaraguan civil society 
groups and human rights advocates. We will continue to work closely 
with regional partners and international organizations, including the 
Organization of American States, to condemn human rights violations and 
abuses by the Nicaraguan Government and its supporters, and to press 
for good faith negotiations on a peaceful solution to the current 
crisis that addresses the legitimate issues raised by the Civic 
Alliance in their proposal to the Government. Every Nicaraguan deserves 
a government that upholds his or her human rights and fundamental 
freedoms and fully respects the rule of law.

    Question 4. In your view, how likely is it that the current 
conflict will escalate into a civil war? Who or what countries might 
provide arms to opposition forces in Nicaragua?

    Answer. Over recent months, more than 300 Nicaraguans have been 
killed, hundreds have been detained and remain missing, and thousands 
have fled the country. While violent clashes in the streets have 
diminished in recent weeks, the Ortega Government, and armed groups 
loyal to it, continue to intimidate and arbitrarily detain hundreds of 
individuals. Our colleagues on the ground report that while some 
normalcy has returned, this is not over.
    The best solution for Nicaragua is a peaceful one. All political 
actors--especially the Government of Nicaragua--should do their utmost 
to avoid an escalation of violence. Sustainable solutions can be found 
only through early, genuinely free, fair, and transparent elections 
with international observation, where the Nicaraguan people can freely 
decide their nation's destiny. The only obstacle to progress is 
President Ortega's unwillingness so far to negotiate in good faith the 
legitimate issues the Catholic Church and other civil society leaders 
have put on the table in the Nicaraguan church-led dialogue.

    Question 5. Last month, Vice President Pence tweeted support for 
early national elections as a solution to Nicaragua's current political 
crisis. Do you believe early elections are the best approach to 
resolving the current crisis?

    Answer. Yes, I believe that a sustainable solution to the ongoing 
crisis can be found only through early, free and fair elections with 
independent international observation, where the Nicaraguan people can 
freely decide their nation's destiny. The only obstacle to progress is 
President Ortega's unwillingness thus far to negotiate in good faith 
the legitimate issues the Catholic Church and other civil society 
leaders have put on the table. We continue to call on President Ortega 
and his government to do so.

    Question 6. What meaningful measures could the Ortega 
administration take to address the grievances brought to light by the 
recent protests, while opening up political space in Nicaragua?

    Answer. The Nicaraguan Government-instigated attacks and threats 
against peaceful protestors and the general population are unacceptable 
and must cease. An end to violence is foremost among the conditions 
necessary to resume good faith negotiations for a democratic and 
peaceful path forward for all Nicaraguans. The only obstacle to 
progress is President Ortega's unwillingness thus far to negotiate in 
good faith the legitimate issues the Catholic Church and other civil 
society leaders have put on the table. It is not too late to do so. 
Agreeing to early, free and fair elections with international 
observation would be provide a peaceful, sustainable path to resolve 
Nicaragua's current crisis.

    Question 7. How united is the current political opposition, which 
seems to have multiple leaders with multiple agendas?

    Answer. After more than a decade of severe repression and legal 
manipulation by the Ortega Government, the current political opposition 
is fragmented and disorganized. The Civic Alliance for Justice and 
Democracy represents a new, broad coalition of private sector, civil 
society, and rural organizations, as well as student interests. While 
it has articulated a unified strategy to find a political solution to 
the crisis, it is not a political party and some of its members have 
competing political objectives. In spite of these differences, there is 
a broad call from across the Nicaraguan population for early, free, and 
fair elections, so that the Nicaraguan people can choose their 
leadership.

    Question 8. Does the Nicaraguan opposition have viable candidates 
if early elections were to be held? As both a leader in Congress and as 
President, Ortega deliberately weakened the opposition; how likely is 
he to allow the opposition to organize if he remains in office until 
the next election?

    Answer. President Ortega has suffocated the emergence of a new 
generation of leaders, not only among opposition groups but within his 
own party as well. Most political parties already have been stripped of 
their legal status, and Ortega continues to manipulate all public 
institutions to repress, divide, delegitimize, and discourage any 
organized opposition. Despite these efforts, viable candidates are 
emerging after months of civic opposition and courageous protests. 
Political support from the international community and targeted 
assistance could assist opposition parties in offering credible, 
competitive alternatives for the Nicaraguan people.

    Question 9. Nicaragua has strong economic and political relations 
with Iran, Russia, and Venezuela, whose governments often work against 
U.S. national security interests. What should the United States be 
doing to counterbalance Nicaragua's engagement with, and growing 
dependence on these countries?

    Answer. The United States remains concerned about Nicaragua's 
continuing economic and political relations with countries like Iran, 
Russia, and Venezuela. If confirmed, I will remain vigilant regarding 
these countries' involvement in sectors that may work against U.S. 
national security interests and will continue our strong public 
messaging and diplomacy to the Nicaraguan people to counter any malign 
influences.

    Question 10. According to UNHCR, 100-150 Nicaraguans are crossing 
into Costa Rica each day since the political unrest began. At least 
8,000 Nicaraguan asylum requests to remain in Costa Rica have been 
requested with UNHCR since April, with another 15,000 cases pending. 
Does UNHCR have the capacity to process and provide services to 
Nicaraguans fleeing to Costa Rica?

    Answer. UNHCR is one of our primary partners working to mitigate 
the impact of Nicaraguans fleeing to neighboring countries. It is 
currently providing legal assistance, supporting registration efforts, 
and helping provide referrals to services for especially vulnerable 
populations. I understand the Costa Rican Government continues to 
process asylum claims, despite its current backlog. UNHCR signed a 
Memorandum of Understanding with the Government of Costa Rica on August 
23 to provide additional staff and space to help process asylum claims. 
Since FY 2017, the Bureau of Population, Refugees, and Migration (PRM) 
has contributed over $40 million to UNHCR and the International 
committee of the Red Cross (ICRC) for its Americas operations, which 
includes support for activities in Costa Rica. PRM has also contributed 
an additional $350,000 to UNHCR this year for emergency needs related 
to the Nicaraguan influx into Costa Rica. PRM continues to assess the 
situation and the need for additional humanitarian resources.

    Question 11. Does Costa Rica have the capacity to accommodate 
thousands of Nicaraguans coming over its borders?

    Answer. The Costa Rican Government is a strong partner with a 
history of positive, constructive engagement on migration issues and is 
committed to building institutional capacity to improve its ability to 
react to future migrant flows. In recent years, Costa Rica has worked 
with the United States, the United Nations High Commissioner for 
Refugees, the International Organization for Migration, and others to 
build institutional capacity to better address migration issues, even 
before the recent uptick of Nicaraguans arriving in Costa Rica. As 
such, the Government possesses both the political will and experience 
to handle migrant-related crisis when they occur. While the recent and 
substantial flow of Nicaraguans entering Costa Rica presents an 
enormous challenge to the Costa Rican Government, our partners are 
working with it to help build capacity.
    I understand the sizeable Nicaraguan community in Costa Rica has 
helped absorb new arrivals, and Costa Rica maintains two temporary 
migrant shelters (one in the north, one in the south) with space for a 
significant number of people. The Costa Rican Government also recently 
completed an interagency ``Action Plan for Mixed Migrant Flows'' and is 
working to implement its specific recommendations. These 
recommendations include better monitoring of migrant flows, 
strengthening border security, and providing coordinated services to 
migrants and refugees. To supplement its own efforts, the Costa Rican 
Government has sought support from the international community to help 
with capacity building of its migration authority.

    Question 12. If confirmed, will you commit to working with our U.S. 
Ambassador to Costa Rica, Sharon Day, to ensure coordination on the 
United States response to this uptick in migration?

    Answer. As the recent increase of Nicaraguans fleeing into Costa 
Rica shows, the current situation in Nicaragua is a regional issue. If 
confirmed, I commit to closely coordinating with U.S. Ambassador to 
Costa Rica Sharon Day, and others, as appropriate.

    Question 13. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Interim U.S. Permanent Representative at the OAS, and 
subsequently as Deputy Permanent Representative, I built support for 
resolutions to hold the Venezuelan Government to account for its 
serious violations of human rights as well as it rupture of the 
country's constitutional order. Under my leadership, our Mission helped 
increase our like-minded coalition from 14 member states when I began 
to around 20 today, bringing a number of influential Caribbean states 
on board despite major diplomatic and financial pressure from 
Venezuela. This larger coalition allowed the Permanent Council to take 
action on the situation in Venezuela for the first time. The resolution 
passed by the 2018 OAS General Assembly made clear that the OAS viewed 
Venezuela's May 20 sham elections as illegitimate. I also worked 
closely with U.S. Ambassador to the OAS Carlos Trujillo in developing a 
similar coalition in the Permanent Council to address the grave human 
rights violations in Nicaragua. We passed a hard-hitting resolution on 
July 18 that called for an end to state-sponsored violence and a return 
to good-faith negotiations on democratic reforms. In addition, our 
Mission was instrumental in advocating a role for, and access by, the 
Inter-American Commission on Human Rights (IACHR) in the monitoring and 
investigation of the violent repression of peaceful protests in 
Nicaragua. Finally, I advocated successfully for providing adequate 
funding for the IACHR in the OAS budget, and for broadening member 
state support for crucial OAS electoral observation missions and its 
anti-corruption mechanisms.
    I also actively promoted human rights and democracy during two 
previous assignments in Africa. As Political Economic Counselor in 
Ethiopia, I pressed successfully for freeing thousands held prisoner by 
the Ethiopian Government in 2006, and helped organize a group of 
prominent citizens to build public support for more democratic rule. 
Over the ensuing decade, Ethiopia has moved gradually in that 
direction. In Malawi, I championed USAID funding for civil society 
electoral observation over the objections of the Government in 2009. 
The Government ultimately embraced the findings of that observation 
effort, which helped ensure a peaceful and transparent conclusion to a 
tense electoral process.

    Question 14. What are the most pressing human rights issues in 
Nicaragua? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Nicaragua? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Nicaragua are 
President Daniel Ortega's use of security forces and armed thugs to 
employ lethal force against peaceful protestors, carry out extra-
judicial killings, and detain and torture political opponents whose 
only crime has been speaking up for democratic reforms, or in some 
cases, simply providing water or medical services to those who do. More 
than 2,000 Nicaraguans have been injured and more than 300 have been 
killed in the current crisis since April 2018.
    If confirmed, I will work with the international community to hold 
responsible those who have carried out these vicious attacks. I will 
help the Department of State continue to expose and hold accountable 
those responsible for the violence and intimidation campaign by: 
imposing visa restrictions on Nicaraguans responsible for, or complicit 
in, human rights abuses or actions that undermine democracy in 
Nicaragua; placing financial sanctions under the Global Magnitsky Human 
Rights Act; and working closely with our regional partners to maintain 
international monitoring of the situation and promote democratic 
solutions. We will also continue to provide targeted supported to civil 
society organizations and human rights advocates. Through these 
actions, the United States and its partners would apply pressure to 
President Ortega, strengthen democratic voices, and support democratic 
resolution of this crisis.

    Question 15. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Nicaragua in 
advancing human rights, civil society and democracy in general?

    Answer. One of the largest obstacles to addressing human rights in 
Nicaragua is President Ortega's unwillingness thus far to negotiate in 
good faith the legitimate issues the Catholic Church and other civil 
society leaders have put on the table. Another obstacle is Ortega-
sponsored violence that increasingly aims to censor, discredit, and 
destroy the independent press and the Catholic Church. Armed 
government-backed mobs have attacked independent news stations, 
parishes, and church properties. Police and thugs have physically 
assaulted journalists, bishops, and priests. Attacks on freedom of 
expression and religious persecution are among the most pressing human 
rights violations in Nicaragua today.
    One of the major challenges I will face in Nicaragua, if confirmed, 
is the instability the Ortega/Murillo regime has inflicted upon 
Nicaragua. Should it continue, it could lead to a number of negative 
outcomes, including an increase in the number of transnational criminal 
organizations operating in the country. Another challenge I will face, 
if confirmed, is the current social unrest which has added significant 
uncertainty to what had been a promising economic trajectory. Truly 
transformative economic growth to lift Nicaragua out of poverty will 
require new attitudes and approaches in key institutions. It is 
imperative that there be free, fair, and early elections to resolve the 
crisis and allow the Nicaraguan people to start building a stable, 
prosperous, and democratic future for their country.

    Question 16. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Nicaragua? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights, civil society, 
and other non-governmental organizations in the U.S. and with local 
human rights NGOs in Nicaragua. If confirmed, I would proactively 
support the Leahy law and similar efforts so that U.S. security 
assistance and security cooperation activities reinforce human rights.

    Question 17. Will you and your embassy team actively engage with 
Nicaragua to address cases of key political prisoners or persons 
otherwise unjustly targeted by Nicaragua?

    Answer. While violent clashes in the streets have diminished in 
recent weeks, the Ortega Government, and armed groups loyal to it, 
continue to intimidate and arbitrarily detain hundreds of individuals, 
including many of the Civic Alliance representatives. If confirmed, I 
will urge the Nicaraguan Government to cease repression and release 
those who have been arbitrarily detained. I will also engage with my 
team at the Embassy to seek ways we can advance the causes of political 
prisoners.

    Question 18. Will you engage with Nicaragua on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes--human rights and strengthening democratic institutions 
will be among my top priorities if confirmed. I will look for new ways 
for the United States to support the Nicaraguan people on their road to 
democratic freedom and prosperity. I applaud the courageous work of the 
Inter-American Commission on Human Rights, the United Nations Human 
Rights Commission, and Nicaraguan human rights organizations 
investigating recent tragic events. Those responsible for these abuses 
and violations must be held accountable. I also strongly support the 
leading role of the Catholic Church and its brave efforts to mediate a 
peaceful resolution. I will ensure the U.S. Government maintains 
regular contact with, and support for, a wide range of Nicaraguan civil 
society groups and human rights advocates. If confirmed, I will urge 
the Nicaraguan Government to cease repression and release those who 
have been arbitrarily detained. Every Nicaraguan deserves a government 
that upholds his or her human rights and fundamental freedoms and fully 
respects the rule of law.

    Question 19. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 20. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 21. Do you or do any members of your immediate family have 
any financial interests in Nicaragua?

    Answer. No. Neither I, nor any members of my immediate family, have 
financial interests in Nicaragua.

    Question 22. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I look forward to leading the team of U.S. 
and Nicaraguan nationals at Embassy Managua and to tapping the unique 
and diverse talents each person brings to promote U.S. foreign policy 
objectives in Nicaragua. At the State Department's core are its people. 
The Department is committed to fostering a workforce that reflects the 
diverse people it represents. Diversity not only enhances our 
effectiveness but also promotes a workplace culture that values the 
efforts of all members and enhances the professional experience of our 
valued public servants. The Department's diversity efforts are outlined 
in its 2016 Diversity and Inclusion Strategic Plan. If confirmed, I 
will prioritize a variety of training opportunities, mentoring, and 
career development programs to ensure employees have the skills 
necessary for current and future work assignments.

    Question 23. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The State Department is committed to equal employment 
opportunity (EEO) and ensuring the Department's work environment is 
free from prohibited discrimination and harassment in all phases of 
employment--including hiring, evaluation, promotion, and training. This 
includes improving and enhancing mentorship programs, expanding 
outreach to managers who make hiring decisions, and encouraging 
collaboration with external partners. If confirmed, I will strongly 
communicate the Department's EEO policies in my mission and ensure they 
are followed. If confirmed, I will also take advantage of the variety 
of programs the Department offers to help supervisors work with a 
multicultural staff.

    Question 24. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Nicaragua 
specifically?

    Answer. Corruption is a major deterrent to effective and 
sustainable development and can manifest in many different forms to 
vitiate the integrity of government officers, institutions, and 
processes. Corruption thrives where institutional checks on power are 
missing, where laws, oversight, and enforcement institutions are weak, 
where decision-making is opaque, and where civil society is 
disempowered. Many of these conditions exist today in Nicaragua.

    Question 25. What is your assessment of corruption trends in 
Nicaragua and efforts to address and reduce it by that government?

    Answer. In 2017, Transparency International ranked Nicaragua as one 
of the most corrupt countries in the region, on par with other 
authoritarian regimes like Cuba and Venezuela. As noted in the 
Department's 2018 Investment Climate Statement, public sector 
corruption is prevalent, with reports of bribery of public officials, 
unlawful property seizures, and arbitrary assessments by customs and 
tax authorities common. Corruption is particularly rampant within the 
judicial system. In a 2016 survey of 2,500 Nicaraguan companies, one-
third of all respondents reported arbitrariness and illegal actions by 
government offices that regulate property rights and businesses.

    Question 26. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Nicaragua?

    Answer. The primary goal of U.S. anticorruption programming is to 
promote integrity in government institutions and processes, including 
the Government's interactions with civil society and the private 
sector. Rigorous laws, institutions, and social practices that enhance 
transparency, accountability, and oversight promote honest conduct and 
provide accountability. In the case of Nicaragua, where poor governance 
and official corruption are endemic, support to civil society and 
independent media is critical to spotlight these issues and hold the 
Ortega Government accountable.
    If confirmed, I will support U.S. efforts to identify government 
officials who are responsible for, complicit in, or directly or 
indirectly engaged in human rights abuses or corruption; such efforts 
may lead to denying entry to the United States to any identified 
individuals. I understand the Department provides assistance to civil 
society and investigative journalists to monitor and report on human 
rights and governance issues and advocate, through regional and 
international fora, for measures to hold the Ortega regime accountable. 
I will seek to strengthen U.S. support and capacity-building for civil 
society organizations and businesses to advocate for improved rule of 
law in Nicaragua. If confirmed, I will engage civil society leaders 
often concerning the need for continued efforts to combat corruption 
and the suppression of fundamental freedoms in Nicaragua.

                               __________


                              NOMINATIONS

                              ----------                              


                       THURSDAY, AUGUST 23, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
presiding.
    Present: Senators Risch [presiding], Flake, Gardner, Young, 
Shaheen, Kaine, and Merkley.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Good morning. This hearing of the Senate 
Foreign Relations committee will come to order.
    I want to thank Senator Merkley for helping to convene this 
hearing today, and I am grateful for our continued partnership 
on so many issues, Senator.
    I would also like to thank the senior Senator from Indiana, 
Senator Donnelly, as well as Senator Peters of Michigan.
    The purpose of today's hearing is, of course, to review the 
nominations of five individuals for key positions. They include 
the following: David T. Fischer, nominated to serve as 
Ambassador to the Kingdom of Morocco; the Honorable Earl Robert 
Miller, a career member of the Senior Foreign Service, to serve 
as Ambassador to the People's Republic of Bangladesh; Mr. 
Daniel Rosenblum, a career member of the Senior Executive 
Service, to be Ambassador to the Republic of Uzbekistan--easy 
for me to say--Mr. Kip Tom, to be Ambassador and U.S. 
Representative to the United Nations Agencies for Food and 
Agriculture; the Honorable David Yamamoto, a career member of 
the Senior Foreign Service, to be Ambassador to the Federal 
Republic of Somalia.
    I want to welcome each of you and thank you for being here 
today, and most importantly, I want to thank you for your 
willingness to serve our country.
    I would like to extend a special welcome to Mr. Tom from 
Indiana. Based on Kip's tremendous experience and status as a 
fellow Hoosier, I wrote a letter to the President last year 
recommending that he nominate Mr. Tom for this position. As I 
said in that letter, Kip has more than 4 decades of domestic 
and international experience related to food and agriculture 
and is uniquely qualified. So I am glad that you are appearing 
before the committee today as the nominee for this important 
position.
    I am also grateful that you have invited so many members of 
your family. In fact, I cannot recall having so many family 
members attend one of these hearings. And they all shared with 
me--I think your parents shared with me we would have a lot 
more if it were not harvest season. So if they could raise 
their hands. That is a lot of individuals, a lot of Hoosiers. 
So thank you for being here.
    During his May 24th appearance before this committee, 
Secretary Pompeo said, quote, with so many challenges before 
us, the State Department needs a full team on the field from 
locally employed staff around the world to senior leaders in 
Washington. Unquote. Secretary Pompeo expressed concern about 
vacancies in key positions and said we need our men and women 
on the ground executing American diplomacy with great vigor and 
energy and representing our great nation.
    I completely agree, and that is why I am excited to have 
five nominees before the committee today. I am hopeful that the 
committee and then the full Senate can process their 
nominations as expeditiously as possible.
    With that, I would like to recognize Senator Merkley for 
his opening comments and also indicate that our other Senators 
do have time commitments. I know Senator Donnelly has another 
committee hearing, and he will need to be out of here roughly 
around 10 after in order to make that. So with that, Senator 
Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you much, Mr. Chairman. I am glad we 
are able to have this hearing and expedite the process for so 
many individuals in key positions.
    Thank you to Mr. Fischer and Ambassador Miller, Mr. 
Rosenblum, Mr. Tom, Ambassador Yamamoto for being here today 
and for being willing to serve in critical posts for our nation 
around the world.
    I have seen the work U.N. agencies perform in the food and 
agricultural sectors during my congressional delegations 
abroad, and I am glad to see a nominee for ambassador for these 
vital institutions.
    And I am pleased to see on this panel career foreign and 
civil servants who have come to their positions with years of 
experience.
    Ambassador Miller, Saturday will mark the 1-year 
anniversary of the start of the brutal campaign of ethnic 
cleansing conducted by the Burmese military against the 
Rohingya, which of course is relevant to your position because 
of the 700,000 refugees that have fled the violence in Burma to 
neighboring Bangladesh. And I look forward to hearing from you 
how the United States can assist Bangladesh in addressing this 
very, very challenging situation.
    I am also pleased Ambassador Yamamoto's nomination is 
moving forward. I visited Somalia in March of this year, and I 
know the challenges that you will face in leading this mission, 
a part of the world that is wrestling with climate, chaos, and 
conflict and corruption, a combination of substantial 
challenges. And it is kind of exciting to have a president 
there who is also a dual citizen with the United States and I 
think certainly working to bring some real policy efforts to 
bear on those challenges. I hope you will be given the 
necessary security resources and support from the Department to 
do your work. When I visited, the representatives of the United 
States said we are the only ones who cannot leave our compound, 
and to do our work, we need to be able to get off the compound, 
an issue I have raised with Secretary Pompeo. I want to make 
sure that our team there is able to do their work.
    Mr. Rosenblum, if confirmed, you will lead a mission in 
Uzbekistan, an historically important hub for supplying our 
troops in Afghanistan and a state that can play an important 
role in resolving the conflict there, including recently 
hosting some of the conversations with the Taliban.
    And I look forward to hearing from Mr. Fischer. Morocco is 
a fascinating state. I appreciated our conversation yesterday 
and to give you an opportunity to address a couple of the 
issues that the committee had raised that they wanted you to 
clarify.
    And thank you all.
    Senator Young. Senator Donnelly, I welcome you to make 
whatever comments you would like to make.

                STATEMENT OF HON. JOE DONNELLY, 
                   U.S. SENATOR FROM INDIANA

    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of our witnesses for your service to 
the country.
    I am here to introduce and proud to introduce my fellow 
Hoosier, Kip Tom, who has been nominated to serve as America's 
Ambassador to the United Nations World Food Program and Food 
and Agriculture Organization.
    Before I speak about Tip, I would like to take a moment to 
recognize some of the people who are here supporting him today, 
and there are a lot of people here supporting him today. His 
parents, Everett and Marie, have traveled from Leesburg, 
Indiana to be here today. He is also joined by his wife Marsha; 
his sister Melinda; his children, Cassie and Kyle; his 
daughter-in-law Angie; his grand children, Keegan, Camden, and 
Cameron; as well as other family members and friends. I am sure 
they are all very, very proud of your accomplishments.
    A native Hoosier, Kip is a seventh generation farmer and 
has been active in agribusiness in Indiana for over 40 years. 
He is the current chairman of Tom Farms in Leesburg, Indiana, 
which is one of the largest corn, soybean, and seed growers in 
the State. Kip's agribusiness experience spans the globe. It 
includes work in North America, South America, Africa, Europe, 
the Middle East, and Asia. He serves on the boards of the 
Indiana Economic Development Corporation, the Indiana Chamber 
of Commerce, the Future Farmers of America Foundation, and the 
National 4-H Foundation. His leadership in the field has also 
been recognized by the Agricultural Future of America, which 
awarded him the 2015 Ag Leader of the Year award.
    I believe Kip is highly qualified and will be committed to 
achieving the goals of the United Nations World Food Program 
and Food and Agriculture Organization as they strive to defeat 
hunger and to achieve food security worldwide.
    I look forward to hearing his testimony and your questions.
    As I said, we are very, very proud of Mr. Tom, and I 
strongly, strongly support his nomination.
    Thank you, Mr. Chairman.
    Senator Young. Thank you, Senator Donnelly.
    With that, Senator Peters, I welcome you to make any 
comments.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Chairman Young. Thank you 
for holding the hearing, Ranking Member Merkley, and other 
Senators that are here, and each of the folks who have been 
nominated, your willingness to serve, if confirmed, is 
certainly very much appreciated.
    I certainly appreciate the opportunity to introduce David 
Fischer, a Michigander, nominated to serve as the U.S. 
Ambassador to Morocco. I will say he is also backed up by a 
very large contingent behind me of 17 members of the Fischer 
family. It was certainly great to have an opportunity meet them 
before this hearing.
    David is a leader in the metro Detroit business community. 
He built his family's auto dealership business into one of the 
largest dealer groups in the entire country. He and his wife 
Jennifer are known for dedication to the community and 
charitable causes, particularly focused on efforts to fight 
cancer, help children, and improve schools.
    David and I have talked about the importance of vocational 
education, and his company has invested in these programs at 
Michigan schools, providing students with the skills training, 
meals, and for those who earn the required certifications, a 
good paying job in his company. David's company also recognizes 
local teachers who have earned the distinction of Teacher of 
the Year in their districts, and he allows them to pick a car 
to use for an entire year at no cost to them in honor of their 
recognition.
    David has raised millions of dollars for renovations at the 
College for Creative Studies in Detroit, and thanks to David's 
leadership on the board of trustees, students have a cutting-
edge learning facility contributing to Detroit's long history 
as a leader in innovation, as well as creativity.
    David and his employees have generously supported a number 
of charitable initiatives, including Fallen Heroes, the Red 
Cross, the American Cancer Society, and Ford Mobile Food 
Pantry, among many, many others.
    If confirmed, David will have an important job ahead of him 
as the Ambassador to one of America's first allies, but as 
someone who has navigated the darkest days of an auto industry 
on the brink of a collapse to the road to recovery and has done 
that through collaboration and bringing people together, David 
has demonstrated tenacity, adaptability, and most importantly, 
leadership.
    Thank you.
    Senator Young. Well, thank you, Senator Peters. I welcome 
you to stay if you like, but I understand your responsibilities 
may also carry you elsewhere.
    I gather Senator Flake also has an introduction to make.

                 STATEMENT OF HON. JEFF FLAKE,
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman.
    It is tradition, if somebody is from your State, a Foreign 
Service officer, to introduce them here. Earl Miller is not 
from Arizona. I am sure he wishes he was at times. [Laughter.]
    Senator Flake. And maybe at some point, but he is not.
    But I chair the Africa Subcommittee and have had occasion 
to spend a considerable amount of time in southern Africa and 
to be able to witness what he has done in the country of 
Botswana as our Ambassador to Botswana for the last 3 and a 
half years.
    He is here with his partner Michelle and son Alexander, I 
believe, and Andrew is elsewhere.
    But I just want to say that it makes me so proud, and one 
of the best things we get to do as Members of the Senate is to 
travel around and see the good work that Foreign Service 
officers are doing around the world, in particular in Botswana, 
so many challenges there with one of the most successful 
efforts the U.S. has ever put in place with PEPFAR. Botswana 
was taken from a country that was in severe danger of total 
collapse there to a situation where we are in a good position 
moving toward at least a position where everyone is getting 
treated, and the efforts that Ambassador Miler made in that 
regard are commendable. Also wildlife preservation and 
environment and habitat protection. We have a wonderful 
partnership with the Government of Botswana that would be not 
be possible were it not for the efforts of Ambassador Miller.
    I just want to say that South Asia, Bangladesh is going to 
be grateful to have him. He has done a great job in his 
previous posts, and I just wanted to commend him here today for 
all he has done for southern Africa.
    Thank you, Mr. Chairman.
    Senator Young. Well, thank you.
    And once again, I want to welcome all of our witnesses.
    Without objection, your full written statements will be 
included in the record. And at this point, I would like to 
invite each of you to summarize your written statement in no 
more than 5 minutes. I welcome you to introduce, if you like, 
any members of your family that may be present here today. So 
we will go in the order that I announced you, beginning with 
Mr. Fischer.

 STATEMENT OF DAVID T. FISCHER, OF MICHIGAN, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE KINGDOM OF MOROCCO

    Mr. Fischer. Thank you so much, Senator. Thank you. As 
always, Jennifer is there helping me turn the button on. 
[Laughter.]
    Mr. Fischer. If I may, would the Fischer family--are you 
all here? Everybody here? Okay.
    Presiding Member Young, Ranking Member Merkley, and 
distinguished members of the committee, I am honored to appear 
before you today as President Donald J. Trump's nominee to 
serve as the Ambassador to the Kingdom of Morocco. First, I 
would like to express my profound thanks to the President and 
the Secretary of State for the confidence they have placed in 
me and the opportunity to represent our country.
    Presiding Member Young, I know that you and the members of 
this committee have a profound dedication to serving the 
American people and representing American interests around the 
globe. The opportunity, with your consent and approval, to work 
with you and your colleagues, Secretary of State Pompeo, and 
the devoted members of this committee on behalf of the 
President is both humbling and invigorating.
    I am strengthened every day by the love and support of my 
family, including my wife Jennifer, who is here with me today 
and who will join my on this journey; my sons, David, Jr., 
Zachary, and Jeffrey, all of whom I could not be more proud of. 
Together as a family we have championed countless causes 
related to social, civic, and community wellbeing. I have 
dedicated my career to developing our business across the 
United States and Canada. Today my company, founded nearly 75 
years ago by my father, employs more than 3,400 people in the 
United States. Such lifelong endeavors will serve this country 
well, should I be confirmed.
    Morocco is one of our oldest allies, and as you know, our 
Treaty of Peace and Friendship with Morocco, ratified in 1787, 
is the longest unbroken treaty relationship in the United 
States' history. Our friendship and continued economic, 
political, and security collaboration are vital and must be 
strengthened.
    With my business background, I appreciate the tremendous 
opportunities for trade as exports from the United States to 
Morocco have tripled in recent years. Morocco is one of the few 
countries to which we have a free trade agreement. It is also a 
gateway for U.S. companies to enter other markets. If 
confirmed, I would work closely with this committee, as well as 
all other relevant departments and agencies, to expand these 
opportunities for U.S. businesses.
    I also understand that no position is without its 
challenges. While the unwavering resolve of men and women of 
our military continues to protect our nation and the world 
against the Islamic State and other terrorist organizations, 
our fight continues. The United States and Morocco stand firm 
in advancing religious freedom and rooting out extremism. 
Morocco is an active and capable partner, was one of the first 
African countries to join the Global Coalition to Defeat ISIS, 
and as co-chair of the Global Counterterrorism Forum, Morocco 
plays a global role in the fight against terrorism. If 
confirmed, I will seek to further strengthen our security 
cooperation with Morocco to protect U.S. interests in the 
region. I will support the United Nations' efforts to advance a 
just, lasting, and mutually acceptable political solution that 
provides for the self-determination for the people of the 
Western Sahara.
    Today, the United States confronts complex foreign policy 
challenges around the world. Morocco is a bridge to Africa, to 
the Middle East, and to the Muslim world. Building a strong 
relationship with King Mohammed VI will be paramount as we 
strengthen our collaboration from a foundation of trust. If 
confirmed, I am confident that my experience in building and 
strengthening strategic alliances, in cultivating and building 
commerce, in supporting and promoting community, social 
welfare, and human rights will serve this administration and 
the United States well. If confirmed, I will work with the 
Government of Morocco to continue political reform and 
encourage further progress on human rights.
    I fully understand that it will be my duty and privilege to 
work on behalf of the President, in lockstep with the State 
Department and this committee to represent the United States of 
America in advancing our interests and helping strengthen 
Morocco as a secure, prosperous, and vital ally of the United 
States of America.
    Thank you, Presiding Member Young and members of this 
committee.
    [Mr. Fischer's prepared statement follows:]


                 Prepared Statement of David T. Fischer

    Subcommittee Chairman Young, Ranking Member Merkley, distinguished 
members of the committee, I am honored to appear before you today as 
President Donald J. Trump's nominee to serve as Ambassador to the 
Kingdom of Morocco. First, I would like to express my profound thanks 
to the President and the Secretary of State for the confidence they 
have placed in me and for this opportunity to represent our country.
    Senator Young, I know that you and the members of this committee 
have a profound dedication to serving the American people and 
representing American interests across the globe. The opportunity--with 
your consent and approval--to work with you and your colleagues, 
Secretary of State Pompeo, and the devoted members of the State 
Department on behalf of the President is both humbling and 
invigorating.
    I am strengthened every day by the love and support of my family--
including my wife Jennifer who is here with me today and will join me 
on this journey--and my sons David, Jr., Zachary and Jeffrey, all of 
whom I could not be more proud of. Together, we have championed 
countless causes related to social, civic and community well-being. I 
have dedicated my career to developing our business across the United 
States and Canada. Today, my company--founded nearly 75 years ago by my 
father--employs more than 3,400 employees. Such lifelong endeavors will 
serve this country well should I be confirmed.
    Morocco is one of our oldest allies and, as you know, our Treaty of 
Peace and Friendship with Morocco, ratified in 1787, is the longest 
unbroken treaty relationship in U.S. history. Our friendship and 
continued economic, political, and security collaboration are vital and 
must be strengthened.
    With my business background, I appreciate the tremendous 
opportunities for trade as exports from the United States to Morocco 
have tripled in recent years. Morocco, one of the few countries with 
which we have a free trade agreement, is also a gateway for U.S. 
companies to enter other markets. If confirmed, I would work closely 
with this committee, as well as relevant departments and agencies, to 
expand opportunities for U.S. businesses.
    I also understand that no position is without its challenges. While 
the unwavering resolve of the men and women of our military continues 
to protect our nation and the world against the Islamic State and other 
terrorist organizations, our fight continues. The United States and 
Morocco stand firm in advancing religious freedom and rooting out 
violent extremism. Morocco is an active and capable partner, was one of 
the first African countries to join the Global Coalition to Defeat 
ISIS, and as co-chair of the Global Counterterrorism Forum, Morocco 
plays a global role in the fight against terrorism. If confirmed, I 
will seek to further strengthen our security cooperation with Morocco 
to protect U.S. interests in the region. I will support the United 
Nations' efforts to advance a just, lasting, and mutually acceptable 
political solution that provides for the self-determination of the 
people of Western Sahara.
    Today, the United States confronts complex foreign policy 
challenges around the world. Morocco is a bridge to Africa, to the 
Middle East, and to the Muslim world. Building a strong relationship 
with King Mohammed VI will be paramount as we strengthen our 
collaboration from a foundation of trust. If confirmed, I am confident 
that my experience in building and strengthening strategic alliances; 
in cultivating and building commerce; in supporting and promoting 
community, social welfare, and human rights will serve this 
administration and the United States well. If confirmed, I will work 
with the Government of Morocco to continue political reform and 
encourage further progress on human rights.
    I understand fully that it would be my duty and privilege to work 
on behalf of the President, in lock step with the State Department and 
this committee to represent the United States of America in advancing 
our interests and helping strengthen Morocco as a secure, prosperous, 
and vital ally of the United States of America.
    Thank you, Senator Young, and members of the committee.


    Senator Young. And thank you, Mr. Fischer.
    Ambassador Miller?

  STATEMENT OF HON. EARL ROBERT MILLER, OF MICHIGAN, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
    STATES OF AMERICA TO THE PEOPLE'S REPUBLIC OF BANGLADESH

    Ambassador Miller, Mr. Chairman, members of the committee, 
I am honored to appear before you today.
    I would like to thank the President and Secretary of State 
for the trust and confidence they have placed in me as their 
nominee for Ambassador to the People's Republic of Bangladesh.
    Mr. Chairman, I would like to introduce my partner, 
Michelle Adelman, and youngest son Alexander, who just finished 
an internship at the State Department this week. I also want to 
recognize my son Andrew who is completing his studies at the 
University of South Florida. Their love and support over the 
years have been invaluable as they accompanied me around the 
world. It has been a privilege to serve the American people in 
eight countries across five geographic regions over the past 3 
decades and see my sons grow into such smart, caring, 
accomplished young men and even consider following in Dad's 
footsteps.
    It is an honor to be nominated to serve the United States 
in such a strategically important country at such a critical 
time for our bilateral relationship. As the world's eighth 
largest country by population and third largest Muslim majority 
nation, Bangladesh is known for its moderate, secular, 
pluralistic traditions. With an annual income growth rate of 
roughly 6 percent each year, Bangladesh aspires to soon become 
a middle income country and is an increasingly important 
trading partner and destination for U.S. investment. It is a 
vital link between South and Southeast Asia. It is a country of 
promise and opportunity, with a vibrant civil society, poised 
to play an even greater role on the regional and world stage.
    We work closely with Bangladesh on a range of issues and 
hold regular structured dialogues on bilateral and regional 
issues, security and defense cooperation, as well as trade and 
investment. The United States is committed to a free and open 
Indo-Pacific, expanding our partnership with Bangladesh in 
support of good governance and fundamental rights and 
liberties, open access to seas and airways, peaceful resolution 
of territorial and maritime disputes, and free and reciprocal 
trade. We cooperate closely with Bangladesh on 
counterterrorism, ensuring threats do not grow and threaten to 
destabilize the region. We do so in a manner consistent with 
the rule of law and respect for human rights. We seek 
opportunities to increase our security and defense cooperation 
in recognition of Bangladesh's admirable contribution to 
regional security and active role in U.N. peacekeeping 
operations.
    Bangladesh faces significant challenges we can work 
together to address in partnership. One is the Rohingya crisis. 
The numbers are staggering, with Bangladesh hosting nearly 1 
million refugees from Rakhine State in Burma. The largest 
refugee camp is now the fourth largest city in Bangladesh. We 
are deeply appreciative of the generosity of the Bangladeshi 
Government and people who have opened their borders and hearts 
to the Rohingya community that has suffered greatly. And the 
United States, as always, is doing its part. We are the largest 
donor addressing this humanitarian crisis, providing $204 
million since August of last year, and we are grateful for 
Congress' funding and continuing support.
    As we approach the 1-year anniversary of attacks in Burma 
that drove so many Rohingya from their homes, it is clear the 
crisis requires sustained efforts. We will continue to work 
with Bangladesh, U.N. agencies, and our international partners 
to meet the urgent needs of the Rohingya while continuing to 
press Burma to create the conditions necessary to allow for 
safe, voluntary, and dignified return.
    The upcoming national elections is an opportunity for 
Bangladesh to reaffirm its commitment to democracy and the rule 
of law by holding free, fair, credible, and inclusive elections 
that reflect the will of the Bangladeshi people. To do so, all 
parties must be able to fully engage in the political process. 
Freedom of expression and the press is also vital for a healthy 
democracy. Media, civil society, members of opposition groups, 
and peaceful protesters must be able to express their views and 
advocate for change without fear of retribution. Ambassador 
Bernicat has been a superb champion of all voices in the 
democratic process and, if confirmed, I pledge to follow her 
admirable example.
    The United States remains concerned about recent trends in 
democracy and human rights in Bangladesh. We remain troubled 
about reports of attacks on vulnerable populations, political 
violence, extrajudicial killings allegedly committed by 
security forces. If confirmed, I will work to support efforts 
to promote accountability and strengthen human rights and 
democracy in Bangladesh.
    Mr. Chairman, if confirmed, I would assume the 
responsibilities of my position with humility, dedication, and 
joy. I often tell my colleagues at our embassy in Botswana that 
an ambassador's greatest super power is simply and wonderfully 
the power to do good. Throughout my career, including 24 years 
as a special agent with the State Department's Diplomatic 
Security Service, I have worked to ensure the safety and 
security of our embassies and people around the world in some 
very challenging environments. I appreciate this is a chief of 
mission's most serious responsibility and it will always be a 
top priority.
    Thank you, Mr. Chairman, for your strong interest in South 
Asia and the positive role the United States plays on that 
continent. If confirmed, I welcome the opportunity to work with 
you, your committee, and other Members of Congress to advance 
America's interests in Bangladesh and throughout the region.
    And I will be honored to answer your questions.
    [Ambassador Miller's prepared statement follows:]


                 Prepared Statement of Hon. Earl Miller

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I would like to thank the President and Secretary of 
State for the trust and confidence they have placed in me as their 
nominee for Ambassador to the People's Republic of Bangladesh.
    Mr. Chairman, I would like to introduce my partner, Michelle 
Adelman, and youngest son, Alexander, who just finished an internship 
at the State Department this week. I also want to recognize my son, 
Andrew, who is completing his studies at the University of South 
Florida. Their love and support over the years have been invaluable as 
they accompanied me around the world. It has been a privilege to serve 
the American people in eight countries across five geographic regions 
over the past three decades and see my sons grow into such smart, 
caring, accomplished young men and even consider following in Dad's 
footsteps.
    It is an honor to be nominated to serve the United States in such a 
strategically important country at such a critical time for our 
bilateral relationship. As the world's eighth-largest country by 
population and third-largest Muslim-majority nation, Bangladesh is 
known for its moderate, secular, pluralistic traditions. With an annual 
economic growth rate of roughly six percent each year, Bangladesh 
aspires to soon become a middle income country and is an increasingly 
important trading partner and destination for U.S. investment. It is a 
vital nation linking South and Southeast Asia. It is a country of 
promise and opportunity, with a vibrant civil society, poised to play 
an even larger role on the regional and world stage.
    We work closely with Bangladesh on a range of issues and hold 
regular structured dialogues on bilateral and regional issues, security 
and defense cooperation, as well as trade and investment. The United 
States is committed to a free and open Indo-Pacific, expanding our 
partnership with Bangladesh in support of good governance and 
fundamental rights and liberties, open access to seas and airways, 
peaceful resolution of territorial and maritime disputes, and free and 
reciprocal trade. We cooperate closely with Bangladesh on 
counterterrorism, ensuring threats do not grow and threaten to 
destabilize the region. We do so in a manner consistent with the rule 
of law and respect for human rights. We seek opportunities to expand 
our security and defense cooperation in recognition of Bangladesh's 
admirable contribution to regional security and active role in U.N. 
peacekeeping operations.
    We also see increasing opportunities to expand our trade and 
commercial relationship. The United States is Bangladesh's largest 
export market, and Bangladesh economic growth routinely averages six 
percent yearly creating opportunities for U.S. firms. We are seeing 
encouraging gains by American companies in Bangladesh's energy, 
infrastructure, and ICT sectors among others. If confirmed, I will 
actively seek to promote U.S. commercial interests while furthering our 
efforts to strengthen labor rights and improve workplace safety.
    Bangladesh faces significant challenges we can work together to 
address in partnership. One is the Rohingya crisis. The numbers are 
staggering, with Bangladesh hosting nearly one million refugees from 
Rakhine State in Burma. The largest refugee camp is now the fourth 
largest city in Bangladesh. We are deeply appreciative of the 
generosity of the Bangladesh Government and people who have opened 
their borders and hearts to a Rohingya community that has suffered 
greatly. The United States, as always, is doing its part. We are the 
largest donor addressing this humanitarian crisis providing $204 
million since August of last year. We are grateful for Congress's 
funding and continuing support.
    As we approach the one-year anniversary of the attacks in Burma 
that drove so many Rohingya from their homes, it is clear the crisis 
requires sustained efforts. We will continue to work closely with 
Bangladesh, U.N. agencies, and our international partners to meet the 
urgent needs of the Rohingya while continuing to press Burma to create 
the conditions necessary to allow their safe, voluntary, and dignified 
return.
    The upcoming national elections is an opportunity for Bangladesh to 
reaffirm its commitment to democracy and the rule of law by holding 
free, fair, credible, and participatory elections that reflect the will 
of the Bangladeshi people. To do so, all parties must be free to 
participate fully in the political process. Freedom of expression and 
the press is also vital for a healthy democracy. Media, civil society, 
members of opposition groups, and peaceful protesters must be able to 
express their views and advocate for change without fear of 
retribution. Ambassador Bernicat has been a superb champion of all 
voices in the democratic process and, if confirmed, I pledge to follow 
her admirable example.
    The United States remains concerned about recent trends in 
democracy and human rights in Bangladesh. We remain troubled about 
reports of attacks on vulnerable populations, political violence, and 
extrajudicial killings allegedly committed by security forces. If 
confirmed, I will work to support efforts to promote accountability and 
strengthen human rights and democracy in Bangladesh.
    Mr. Chairman, if confirmed, I would assume the responsibilities of 
my position with humility, dedication, and joy. I often tell my 
colleagues at our embassy in Botswana an American ambassador's greatest 
superpower is simply, and wonderfully, the ability to ``do good.'' 
Throughout my career, including 24 years as a Special Agent with the 
State Department's Diplomatic Security Service, I have worked to ensure 
the safety and security of our embassies and people around the world in 
some very challenging environments. I appreciate this is a Chief of 
Mission's most serious responsibility, and it will always be a top 
priority.
    Thank you, Mr. Chairman, for your strong interest in South Asia and 
the positive role the United States plays on that continent. If 
confirmed, I welcome the opportunity to work with you, your committee 
and other members of Congress to advance America's interests in 
Bangladesh and throughout the region. It would be a great privilege to 
once again represent the people of the United States of America.
    I would be honored to answer your questions.


    Senator Young. Thank you, Ambassador Miller.
    Mr. Rosenblum?

STATEMENT OF DANIEL N. ROSENBLUM, OF MARYLAND, A CAREER MEMBER 
OF THE SENIOR EXECUTIVE SERVICE, TO BE AMBASSADOR EXTRAORDINARY 
  AND PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                     REPUBLIC OF UZBEKISTAN

    Mr. Rosenblum. Chairman Young, Ranking Member Merkley, 
Senator Shaheen, I am honored to be here today as the nominee 
for U.S. Ambassador to the Republic of Uzbekistan.
    I would like to introduce a few members of my family who 
have joined me here today: my wife Sharon, my son Jonah, and my 
daughter Leanna, and my sister Miriam who has come down from 
Boston to be with us today. They keep me grounded and I am 
grateful for that. They have already taken to calling me 
``Ambassadad'' as an example of that, although I reminded them 
that they cannot call me that until I am confirmed by the U.S. 
Senate.
    The life journey that led to my sitting at this table 
started in Middleburg Heights, Ohio where I had the good 
fortune to be the son of Louis and Evelyn Rosenblum. My mother 
was an educator who passed on to me her love of learning and 
fascination with history.
    My father worked at NASA for over 30 years developing 
rocket fuels that took the first Americans into space and later 
solar cell technology for use on earth. My dad was also a human 
rights activist who in the early 1960s helped organize the 
grassroots movement that provided moral and material support to 
Jews and other oppressed minorities living under Soviet 
communism. His advocacy efforts eventually led to passage of 
the Jackson-Vanik amendment and mass emigration of Soviet Jews 
to Israel and the United States.
    I was deeply inspired by my father's civic activism and 
motivated to learn more about that faraway place that occupied 
so much of his attention. No doubt this influenced my decision 
to study Russian history, language, and literature and later to 
pursue a master's in Soviet studies.
    I also consider myself extremely fortunate to have spent 4 
years here in the United States Senate in the 1980s learning 
from one of the most brilliant and hardworking public servants 
I have ever known, Senator Carl Levin of Michigan. During more 
than 2 decades at the State Department, I have relished 
opportunities to collaborate with Congress to further our 
foreign policy goals. And if confirmed, I look forward to 
working together with the members of this committee to promote 
U.S. interests and values in our relationship with Uzbekistan.
    What are those interests? Why does the United States care? 
We care because what happens in Uzbekistan directly affects the 
safety and security of American citizens. We have seen what can 
happen around the world when we disengage and ignore the root 
causes of instability. A stable and secure Uzbekistan is very 
much an American interest.
    We also have a sound, longstanding bipartisan policy of 
supporting the sovereignty and territorial integrity of the 
independent states that emerged from the collapse of the Soviet 
empire. Uzbeks appreciate America's steadfast support for their 
sovereignty since 1991 when we were the very first country to 
recognize their independence. A fully sovereign Uzbekistan, 
free to align itself internationally as it sees fit, is very 
much an American interest.
    Uzbekistan currently is going through an exciting phase in 
its history as an independent nation. Over the past 2 years, 
President Mirziyoyev has launched a series of sweeping economic 
and political reforms aimed at modernizing Uzbekistan's 
economy, improving its citizens' quality of life, and making 
its government more accountable. More than 40 activists and 
journalists have been released from prison. Restrictions on 
civil society and the media are being loosened. Incidences of 
forced labor in the annual cotton harvest have been reduced, 
child labor virtually eliminated, and important first steps 
have been made to expand religious freedom.
    President Mirziyoyev has also fundamentally reoriented 
Uzbekistan's foreign policy by vastly improving relations with 
his Central Asian neighbors and actively supporting regional 
cooperation. Uzbekistan has also begun to play a prominent role 
in the search for peace and reconciliation in neighboring 
Afghanistan.
    If confirmed by the Senate, my number one priority will be 
to ensure the safety and security of my embassy team, as well 
as any an all American citizens in Uzbekistan. Beyond that, I 
will make it my priority to, number one, deepen our partnership 
with Uzbekistan in pursuit of shared regional security goals 
and achieve a new level of cooperation to counter terrorism and 
other transnational threats; two, support the ambitious reforms 
the Government of Uzbekistan has initiated; three, help U.S. 
companies take full advantage of opportunities to sell American 
products and to make investments as policy reforms make it 
easier to do business in Uzbekistan; four, continue our focus 
on further improvements in the protection of basic rights and 
freedoms; and five, expand educational, business, science, and 
cultural exchanges between Uzbeks and Americans in order to 
establish a solid foundation for a long-term partnership.
    Mr. Chairman and members of the committee, if I am 
confirmed, I pledge to work closely with you to support 
America's growing strategic partnership with Uzbekistan. I am 
grateful for this extraordinary opportunity to serve my 
country, and I look forward to your questions.
    [Mr. Rosenblum's prepared statement follows:]


                 Prepared Statement of Daniel Rosenblum

    Chairman Young, Ranking Member Merkley, members of the committee, 
I'm honored to be here today as the President's nominee for U.S 
Ambassador to the Republic of Uzbekistan.
    The life journey that led to my sitting at this table started in 
Middleburg Heights, Ohio, a suburb of Cleveland, where I had the good 
fortune to be the son of Louis and Evelyn Rosenblum. My mother was a 
teacher and religious school principal, who modelled basic values that 
I have strived, if not always succeeded, to live up to: show respect to 
everyone, practice empathy, and be tolerant of beliefs and backgrounds 
different from your own. She and my father also passed on to me their 
love of learning and, especially, a fascination with history. I should 
add that growing up as an obsessive fan of the Cleveland Indians, 
Browns and Cavaliers instilled in me some other useful qualities: 
patience, loyalty, and a high threshold for pain.
    My father was a chemist who worked at NASA for over 30 years, 
testing fuels for the rockets that took the first Americans into space 
and later developing battery and solar cell technology for use on 
earth. When he wasn't being a ``rocket scientist,'' my dad was also a 
human rights activist. In the early 1960's, he and a few friends at his 
synagogue organized the Cleveland Council on Soviet Anti-Semitism, 
which sought to educate the American public about the plight of Jews in 
the Soviet Union, who couldn't freely practice their religion there, 
and weren't even permitted to emigrate in order to do so. His group 
provided moral and material support to Jews and other oppressed 
minorities living under Soviet Communism, and eventually joined with 
like-minded grassroots groups across the U.S. to create the Union of 
Councils for Soviet Jews. By the 1970s the campaign Lou Rosenblum and a 
handful of others started had become a major social and political 
movement, leading to passage of the so-called Jackson-Vanik amendment 
and eventually to mass emigration of Soviet Jews and other religious 
minorities to Israel and the United States.
    Although very young while all this was happening, I was deeply 
inspired by my father's public service and tireless civic activism, and 
motivated to learn more about this far-away country that occupied so 
much of his time and attention. No doubt this influenced my decision to 
study Russian history, language and literature as an undergraduate, and 
later to pursue a Master's degree in Soviet Studies.
    In between my academic studies, I was extremely fortunate to get 
another kind of education, when I spent four years in this great 
institution, the United States Senate, learning from one of the most 
brilliant and hard-working public servants I have ever known: Senator 
Carl Levin of Michigan. Senator Levin took this chamber's oversight 
role very seriously, and taught me to appreciate the wisdom of our 
founding fathers when they created a co-equal legislative branch as an 
indispensable part of our system of checks and balances. As a result, 
during the more than two decades I have been sitting on the ``other 
side of the table'' at the State Department, I have relished 
opportunities to work with Congress to further U.S. foreign policy 
goals in a collaborative spirit. And in that spirit, if confirmed, I 
look forward to working together with the members of this committee to 
promote U.S. interests and values in our relationship with Uzbekistan.
    On the verge of joining the Foreign Service in 1991, I opted 
instead to work for an NGO involved in supporting labor rights in the 
post-Communist countries of Eastern Europe and the former Soviet Union. 
Traveling all over the region and meeting coal miners, air traffic 
controllers, textile workers, and teachers, I got a ground level view 
of the disruptive economic and social changes occurring in those 
societies and how they were affecting ordinary workers. I also 
witnessed the mixed record of international assistance in helping these 
countries navigate the transition away from Communism and towards free 
market democracy. Beginning in 1997, I was able to bring that 
experience to the State Department, where I spent many years 
coordinating U.S. foreign aid to the newly independent countries of the 
former Soviet Union and Western Balkans. Since 2014, I have focused on 
developing policy towards and managing diplomatic relations with the 
countries of Central Asia, including Uzbekistan.
    When my friends and family heard the news about my nomination, 
their two most frequent questions were: One, can you show me where 
Uzbekistan is on a map? And two, why does the U.S. care what happens 
there? I was already quite used to answering versions of these 
questions from my four years as Deputy Assistant Secretary in the 
Bureau for South and Central Asian Affairs. My answer is 
straightforward, and has two parts.
    First, we care because what happens in Uzbekistan and the rest of 
Central Asia directly affects the safety and security of the United 
States and its citizens. We want these countries to develop as stable, 
prosperous, human rights-respecting and friendly partners because if 
they don't, we will eventually pay the price here at home. We saw what 
happened in Afghanistan in the 1990s; we have seen what can happen in 
other parts of the world when we disengage and ignore the root causes 
of instability. A stable and secure Uzbekistan is very much an American 
interest.
    Second, our country has been well served over the past two and a 
half decades by a bipartisan policy of supporting the sovereignty, 
independence, and territorial integrity of the independent states that 
emerged from the collapse of Communism in Central and Eastern Europe. 
It is not in our long-term security or economic interests for a single 
power to dominate this region. We are much better off having mutually 
beneficial relations with a diverse group of sovereign countries, both 
big and small, in Eurasia and Central Asia. And I have personally seen 
how much the Government and people of Uzbekistan appreciate America's 
steadfast support for their sovereignty since 1991, when we were the 
very first country to recognize their independence. A fully sovereign 
Uzbekistan, free to align itself internationally as it sees fit, is 
very much an American interest.
    Uzbekistan currently is going through an exciting phase in its 
history as an independent nation. Over the past two years, President 
Mirziyoyev--who visited Washington a few months ago and met with the 
President, Cabinet officials, members of Congress, and the U.S. 
business community--has launched a series of sweeping reforms aimed at 
modernizing Uzbekistan's economy, improving its citizens' quality of 
life, and making its government more accountable. His policies have led 
to a marked, though incomplete, improvement in Uzbekistan's human 
rights record. Approximately 40 prisoners of conscience have been 
released, including all high-profile human rights activists and 
journalists. In addition, restrictions on civil society and the media 
are being loosened, incidences of forced labor in the annual cotton 
harvest have been reduced, child labor virtually eliminated, and 
important first steps have been made to expand religious freedom, such 
as the official registration of a Christian community last month.
    President Mirziyoyev has also reoriented Uzbekistan's foreign 
policy by vastly improving relations with its Central Asian neighbors 
and actively supporting regional cooperation, including through the 
C5+1 format.
    Uzbekistan has begun to play a prominent role in the search for 
reconciliation in neighboring Afghanistan and integrating Afghanistan 
into the Central Asian regional economic and political architecture, 
and if confirmed, I look forward to supporting those efforts, while 
ensuring they are well coordinated with international frameworks for a 
settlement of the Afghanistan conflict.
    If confirmed by the Senate, my number one priority will be ensuring 
the safety and security of my Embassy team, as well as any and all 
American citizens in Uzbekistan. Beyond that, I will make it my 
priority to:

 1. Deepen our partnership with Uzbekistan in pursuit of our shared 
        security goals in the region. This includes not only working 
        together to stabilize Afghanistan, but also achieving a new 
        level of cooperation between our militaries and other security 
        and law enforcement agencies in order to counter extremists, 
        transnational criminals, proliferation threats and traffickers 
        of narcotics and persons.
 2. Support implementation of the sweeping reforms the government of 
        Uzbekistan has initiated. Through our assistance programs, we 
        are already providing a boost to reforms in the judicial 
        sector, agriculture, and health care. We can and will do more 
        to support nascent economic liberalization.
 3. Help U.S. companies take full advantage of opportunities for sales 
        and investments that will emerge as Uzbekistan makes it easier 
        for both domestic and foreign companies to do business.
 4. Continue our intensive focus on further improvements in the 
        protection of basic rights and freedoms. We will be supportive 
        of positive trends while offering constructive criticism when 
        warranted, consistent with traditional American values.
 5. Broaden engagement between the citizens of Uzbekistan and the 
        United States by significantly expanding our educational, 
        business, science and cultural exchanges in both directions. 
        There is a strong and growing demand in Uzbekistan for English 
        language instruction and for American technology and knowhow. 
        And nothing will help solidify the foundation for long-term 
        U.S.-Uzbek partnership more than building out the network of 
        linkages between our two nations.

    Mr. Chairman, members of the committee, if I am confirmed, I pledge 
to work closely with you to support America's growing strategic 
partnership with Uzbekistan. I'm grateful to the President, the 
Secretary of State and this committee for giving me an extraordinary 
opportunity to serve my country. I look forward to your questions.


    Senator Young. Thank you, Mr. Rosenblum.
    Mr. Tom?

 STATEMENT OF KIP TOM, OF INDIANA, FOR THE RANK OF AMBASSADOR 
  DURING HIS TENURE OF SERVICE AS U.S. REPRESENTATIVE TO THE 
        UNITED NATIONS AGENCIES FOR FOOD AND AGRICULTURE

    Mr. Tom. Chairman Young, Ranking Member Merkley, 
distinguished members of the committee, thank you for this 
opportunity to appear before you today as the nominee to 
represent the United States of America as the Ambassador to the 
United Nations Agencies for Food and Agriculture in Rome.
    I will not spare you any more time with introductions of 
the family. We have covered that a few times, but I really 
thank them for being here today. It means a lot to me to have 
them in the background, sometimes for the first time in D.C.
    So I am grateful to be given this opportunity, outline my 
qualifications, and discuss my vision with you today.
    I would like to take this opportunity to recognize the 
committee's leadership on global food security. Not only is the 
U.S. the largest food provider in the world, but you have led a 
whole-of-government effort to address the root causes of global 
poverty and hunger by giving farmers the tools and knowledge to 
help them feed themselves. This approach will provide economic 
growth and stability at a time when the world needs it most. I 
cannot imagine a better honor than to serve in the leadership 
capacity and be a small part in advancing U.S. global food 
security efforts to create a more stable food secure world.
    I have been privileged to visit humanitarian response 
efforts in Afghanistan, Iraq, Kenya, Tanzania where food 
security continues to be a challenge, in some cases in the 
midst of a protracted conflict. Most of these people are 
farmers, and I witnessed the challenges they face in growing 
enough food to feed their own children and family. As a farmer 
and as a father, to see these people struggle in this way is 
heartbreaking. While the world will always see crises, I know 
we can do better to lift people out of poverty.
    My story is an American story. I was born in Leesburg, 
Indiana, one of five children in a sixth generation family 
farm. We were raised on a modest 200-acre farm that our family 
settled back in 1837. We may not have had much 
materialistically, but my parents gave us what they could, 
instilling strong family values, work ethic, leadership skills, 
many gained through organizations like 4-H and FFA and the 
church where we belonged. It was because of these experiences 
that we understood the freedoms and the opportunities that this 
country offers. Our family's experience is unique, but it is 
also familiar to many Americans across rural America and 
throughout our country's history.
    It was on this same farm where I raised my own family of 
five children and grew it into a larger family farming business 
that is recognized globally.
    The U.N. agencies in Rome are three principal organizations 
at the U.N. dedicated to food and agriculture. As a successful 
farmer, I know what it takes to grow agriculture, create jobs, 
and empower youth, and I have sought to share my knowledge and 
support agriculture and food security all over the world.
    During these 45 years of farming, I have been part of 
numerous agriculture technology startup companies in the 
Silicon Valley, agribusiness firms to develop and advance new 
technologies that have driven global agricultural productivity.
    From 2005 to 2015, I was honored to serve with Governor 
Daniels and then Governor Pence on the Indiana Economic 
Development Corporation Board. During my time serving on that 
board, we saw high levels of job growth while attracting record 
levels of capital investment to our Hoosier State. Today 
Indiana is rated as one of the top States for businesses to 
call home.
    As a business leader, whether I am working with government 
officials, startups, or established multinationals, I believe 
that there is nothing more important to a leader's success than 
his or her ability to unite those with different backgrounds, 
viewpoints, and objectives behind a common purpose.
    Although I will always call my Hoosier State home and will 
always call myself a farmer, I look forward to begin this new 
chapter, if confirmed. I am eager to represent my country, 
build consensus amongst organizations, and forge new 
relationships to advance U.S. interests.
    The U.S. is the largest donor to the U.N. agencies in Rome, 
providing more than $2.6 billion a year in funding for 
humanitarian response efforts alone. If confirmed, I intend to 
bring a private sector perspective to the governance oversight 
roles of the U.S. mission to help enhance the effectiveness of 
our investments abroad.
    Mr. Chairman, my goal in serving as Ambassador to the 
United Nations Agencies for Food and Agriculture will be to 
improve our mission's outcomes, to serve the interests of the 
American people. If you confirm me, I will bring all my 
knowledge, work ethic, and skills to bear to ensure that this 
becomes a reality. I will do it in ways that I hope brings 
honor to our country, our values, and our national interests.
    Thank you very much for your time.
    [Mr. Tom's prepared statement follows:]


                     Prepared Statement of Kip Tom

    Chairman Young, Ranking Member Merkley, distinguished members of 
the committee, thank you for the opportunity to appear before you today 
as the nominee to represent the United States of America as Ambassador 
to the United Nations Agencies for Food and Agriculture in Rome. I am 
grateful to be given the opportunity to outline my qualifications and 
discuss my vision with you today.
    I would like to take the opportunity to recognize this committee's 
leadership on Global Food Security. Not only is the U.S. the largest 
provider of food aid in the world, but you have led a whole of 
government effort to address the root causes of global poverty and 
hunger by giving farmers the tools and knowledge to help them feed 
themselves. This approach will provide economic growth and stability at 
a time when the world needs it most. I cannot imagine a better honor 
than to serve in this leadership capacity and be a small part in 
advancing U.S. global food security efforts to create a more stable, 
food secure world.
    I have been privileged to visit humanitarian response efforts in 
Afghanistan, Iraq, Kenya and Tanzania where food security continues to 
be a challenge. Most of these people are farmers, and I witnessed the 
challenges they face in growing enough food to feed their children. As 
a farmer and a father, to see these people struggle in this way is 
heartbreaking. While the world will always see crises, I know we can do 
better to lift people out of poverty.
    My story is an American story. I was born in Leesburg, Indiana, one 
of five children in a sixth generation farming family. We were raised 
on a modest 200 acre farm that our family settled in back in 1837. We 
may not have had much, but my parents gave us what they could, 
instilling strong family values and leadership skills through 
organizations like 4-H, FFA, and the church where we belonged. It was 
because of those experiences that we quickly understood the freedoms 
and the opportunities this country offers. Our family's experience is 
unique. But it is also familiar to many Americans across rural and 
throughout our country's history.
    It was on this same farm where I raised my own family of five 
children and grew it into a large family farming business that is 
recognized globally.
    The U.N. agencies in Rome are the three principal organizations at 
the U.N. dedicated to food and agriculture. As a successful farmer, I 
know what it takes to grow agriculture, create jobs and empower youth, 
and I have sought to share my knowledge and support agriculture and 
food security all over the world.
    During those 43 years of farming I have been part of numerous 
agriculture technology startup companies in Silicon Valley and Agri-
business firms to develop and advance new technologies that have driven 
global agricultural productivity.
    From 2005-2015, I was honored to serve with Governor Daniels and 
then Governor Pence on the Indiana Economic Development Corporation 
Board. During my time serving on the board we saw high levels of job 
growth while attracting record levels of capital investment in the 
Hoosier State. Today, Indiana is rated as one of the top States for 
businesses to call home.
    As a business leader, whether I am working with government 
officials, start-ups, or established multinationals, I believe that 
there is nothing more important to a leader's success than his or her 
ability to unite those with different backgrounds, viewpoints, and 
objectives behind a common purpose.
    Although I will always call my Hoosier State home and will always 
call myself a farmer, I look forward to begin this new chapter, if 
confirmed. I am eager to represent my country, build consensus amongst 
organizations, and forge new relationships to advance U.S. interests.
    The U.S. is the largest donor to the U.N. Agencies in Rome, 
providing more than $2 billion a year in funding for humanitarian 
response efforts alone. If confirmed, I intend to bring a private 
sector perspective to the governance oversight roles of the U.S. 
Mission to help enhance the effectiveness of our investments abroad.
    Mr. Chairman, my goal in serving as the Ambassador to the U.N. 
Agencies for Food and Agriculture will be to improve our Missions 
outcomes to better serves the interests of the American people. If you 
confirm me, I will bring all my knowledge, work ethic, and skills to 
bear to ensure that this becomes a reality.
    I will do it in ways that I hope bring honor to our country, our 
values, and our national interests. Thank you very much for your time.


    Senator Young. And thank you, Mr. Tom.
    Ambassador Yamamoto?

 STATEMENT OF HON. DONALD Y. YAMAMOTO, OF WASHINGTON, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, 
   TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE 
  UNITED STATES OF AMERICA TO THE FEDERAL REPUBLIC OF SOMALIA

    Ambassador Yamamoto Thank you very much, Mr. Chairman and 
Ranking Member Merkley and the honored members of this 
committee. It is indeed a great honor to appear before you 
today to be considered for the position as the U.S. Ambassador 
to the Federal Republic of Somalia. And I am very humbled by 
the nomination by the President and the confidence by the 
Secretary of State.
    I would like to introduce my wife Margaret, who with the 
many other many dependents and eligible family members of the 
Foreign Service, constantly makes sacrifices each and every day 
and contributions to the U.S. Government and to the people of 
the United States. Through two evacuations and supporting 
colleagues serving in harm's way, we have two children who are 
also committed to service. Our daughter Laura is a cadet at the 
U.S. Military Academy at West Point, and our son Michael serves 
as a captain in the U.S. Army Signal Corps. And it was a great 
honor for me to also serve in Afghanistan where my son served 
on two occasions.
    Mr. Chairman and honored members, I have been very 
fortunate to serve in the Foreign Service for the last 2 
decades in Africa in multiple ambassadorial assignments, as 
well as Mogadishu, Somalia as the charge d'affaires 2 years ago 
to set up operations there and also recently as the Assistant 
Secretary Acting for the Africa Bureau.
    Over the past several years, the characteristics that have 
designated Somalia have made great strides and improvements. 
And that is due to not only the United States' leadership role 
but also the people and the governments in Somalia.
    The gains, though, can only hold through sustained good 
governance, commitment to tackle enormous security challenges, 
and determination to bring a better future for the country and 
its people. The United States is an important partner in the 
implementation of steadily increasing political, economic, and 
security reforms. We as the United States are in a critical 
leadership role, and if confirmed, Mr. Chairman, I will 
continue to advance the U.S. leadership role in advancing the 
U.S. national strategic interests in four critical areas: 
first, in building democratic institutions and holding 
governments accountable to the people; developing effective 
security forces; implementing stabilization and economic 
recovery programs; and delivering humanitarian assistance.
    Coordinating the international partners will also be 
critical to make the most effective use of U.S. influence and 
resources. And strengthening the positive relationships we 
have, such as the African Union and the AMISOM troop 
contributions, also the Gulf States, international actors and 
organizations involved in Somalia will be our top priorities 
with your confirmation, sir.
    Above all, if confirmed, I will work to ensure the safety 
and security of the staff, U.S. Government colleagues, U.S. 
citizens in Somalia, and the security challenges in Mogadishu. 
And they are significant. It is challenging. It is dangerous 
and it will continue to challenge us for the years to come.
    And, Mr. Chairman, on a positive note too, Somalia is in 
change. We have the return of the Diaspora, including American 
citizens who are investing in Somalia. And Somalia's progress 
will continue through the efforts that we make and that we do 
in coordination with our colleagues.
    So, Mr. Chairman and the members of this committee, I would 
like to take this opportunity to say, if confirmed, I would do 
my utmost to seriously dedicate myself to the service and the 
values of this nation and to the people and to our objectives 
in Somalia.
    Thank you, Mr. Chairman.
    [Ambassador Yamamoto's prepared statement follows:]


             Prepared Statement of Hon. Donald Y. Yamamoto

    Mr. Chairman, Ranking Member Menendez, and members of the 
committee, it is an honor to appear before you today to be considered 
for the position of United States Ambassador to the Federal Republic of 
Somalia. I am humbled to be President Trump's nominee for this 
important position and want to thank him and Secretary Pompeo for the 
confidence they have shown in me through this nomination.
    I would like to take this time to introduce my wife, Margaret, and 
my children, who underscore the commitment to service: my daughter 
Laura, a Cadet at West Point, and son, Michael, who serves as a Captain 
in the U.S. Army Signal Corps.
    Mr. Chairman, I have been fortunate to have many opportunities to 
work in East Africa over the course of my 38 years in the Foreign 
Service, including as Ambassador to the Federal Democratic Republic of 
Ethiopia, Ambassador to the Republic of Djibouti, Charge d'Affaires at 
U.S. Mission Somalia, and most recently as Acting Assistant Secretary 
for African Affairs. Throughout my time in the region, I have been 
continuously impressed by the determination and resilience of the 
Somali people.
    Over the past several years, those characteristics have been 
critical to the reemergence of a federalized system of governance in a 
country that has begun to assert itself as a legitimate and credible 
internal and international partner. The Federal Government of Somalia 
(FGS) and its Federal Member States are working together to expand 
governance, pursue critical fiscal and security sector reforms, and 
address humanitarian needs, while the Somali diaspora, including many 
Americans, are returning and investing in Somalia, boosting the 
agriculture and service sectors.
    These gains will hold only through sustained good governance, 
commitment to tackle enormous security challenges, and determination to 
bring about a better future for the country, one that no longer poses a 
security threat to the United States or the world. The United States is 
an important partner in the implementation of steadily increasing 
political, economic, and security reforms.
    We, as the United States, are a critical lead element in 
coordinating international and regional efforts to improve Somalia's 
future. Mr. Chairman, if confirmed, I will work to advance our desired 
end state of a peaceful and prosperous Somalia by focusing support to 
the Somali people in four key areas:

 1. Building democratic institutions and governance structures, 
        including by helping the Somalis plan for direct general 
        elections in 2020/2021. ``One person one vote'' elections will 
        be critical for shifting political influence away from power 
        brokers to the people.
 2. Developing effective security forces that can take over 
        responsibilities from the African Union Mission to Somalia 
        (AMISOM) and provide security throughout the country;
 3. Implementing stabilization and economic recovery programs to help 
        Somalis rebuild their communities liberated from al-Shabaab's 
        grasp, provide jobs for Somalia's growing youth population, and 
        develop as a market for U.S. investment; and
 4. Delivering humanitarian assistance to alleviate emergency food and 
        health crises in the near term while building capacity to allow 
        Somalia to return to self-reliance and a role as a valuable 
        contributor to its region and the world.

    Coordination with international partners will also be critical to 
make the most effective use of U.S. influence and resources. 
Strengthening positive relations with like-minded western partners, 
AMISOM troop contributors, the Gulf States, and other international 
actors and organizations involved in Somalia, will be among my top 
priorities.
    Above all, if confirmed, I will work to ensure the safety and 
security of my staff,U.S. government colleagues, and U.S. citizens in 
Somalia. The security challenges in Mogadishu are significant, and I 
will be ever vigilant to ensure that our operations are conducted with 
appropriate security safeguards in place.
    Somalia's progress in the past few years, however fragile, is 
inspiring, and we have willing partners in the Somali government and 
the Somali people. Mr. Chairman, I have faith that with unwavering 
effort, we can maintain this positive momentum and deliver meaningful 
achievements that benefit both the United States and Somalia. If 
confirmed, I will work hard to protect Americans in Somalia, strengthen 
our bilateral relationship, and see that our considerable investment in 
Somalia bears the fruit of peace and security.
    I look forward to the opportunity to work with the committee to 
achieve those goals. Let me once again reemphasize, Mr. Chairman, to 
this committee, and the Congress, that I would take on this assignment 
with the utmost seriousness and dedication, in service of our values 
and our people. Thank you.


    Senator Young. And thank you, Mr. Ambassador.
    For the information of all of the nominees, as well as the 
members present, votes have been called. It is unclear at this 
point whether we are going to have one or two votes, but we 
will make every effort to expedite this process and keep it 
going if possible, otherwise we may recess.
    There will be 7 minutes for members to ask their questions, 
at least in the first round of questions.
    So I will begin with Mr. Tom. Sir, you are nominated to 
serve as the Ambassador to the U.N. Agencies for Food and 
Agriculture in Rome. Let me just reiterate how proud I am to 
have such a qualified individual from our home State of Indiana 
nominated to this position.
    You will promote, if confirmed, U.S. interests and policies 
with respect to three entities: the Food and Agriculture 
Organization, the World Food Program, and the International 
Fund for Agricultural Development.
    As chair of the subcommittee that oversees multilateral 
institutions, including the United Nations and related 
entities, and in my efforts related to the four famines, in 
particular in Yemen, I have worked particularly closely with 
the World Food Program. Executive Director Beasley, for 
example, has appeared before my subcommittee twice just over 
the last roughly 18 months.
    Mr. Tom, once confirmed, will you let me know, let members 
of my office know what we can do so that we can work together 
and ensure multilateral efforts are as effective as absolutely 
possible with respect to food security?
    Mr. Tom. Senator Young, thank you for that question.
    If confirmed, I will report back into this committee and 
let you know what my experiences are, the solutions I find, and 
the work that I have come to grow with with Executive Director 
Beasley and others at USAID and FAO to make sure that we report 
back in our successes and make sure that we understand that 
success is measured by those that we lift out of poverty and 
help become food secure.
    Thank you.
    Senator Young. Relatedly I would just like to take this 
opportunity to indicate how pleased I was that section 1290--it 
is a provision in the National Defense Authorization Act that I 
worked with Senator Shaheen and others on--was included in the 
act that President Trump signed into law. And I look forward to 
reviewing Secretary Pompeo's written detailed and unclassified 
submission related to Yemen by September 12th in accordance 
with the law.
    Ambassador Yamamoto, in your written statement, you list as 
one of your top priorities for Somalia delivering humanitarian 
assistance to alleviate emergency food and health crises. Based 
on your most recent position and your preparation for this 
hearing, can you just provide this committee an update on the 
food insecurity crisis in Somalia and indicate what tangible 
steps we should be focusing on as a committee and as a country 
to help alleviate the food insecurity situation?
    Ambassador Yamamoto Thank you, Mr. Chairman.
    So in Somalia, with a population of 11 million, over 50 
percent are acute food insecure. That means 5.4 million people. 
But it is not just Somalia but the entire region is entering 
its fourth year of drought, and so that poses huge problems and 
challenges.
    The United States is the major donor for food assistance 
and humanitarian assistance to Somalia, and we will be working 
very closely with my colleague here, Mr. Tom, on those food 
insecurity issues. And the way we deliver is that the United 
States remains critical to the humanitarian assistance not just 
to Somalia but to the entire region.
    Senator Young. Well, you preempted by follow-up question. I 
wanted your assurance that you would be working closely with 
Mr. Tom. And, Mr. Tom, my presumption is you will be working 
closely with Ambassador Yamamoto, and both of you will be 
reporting back to my office and this committee on your efforts. 
Is that a correct presumption?
    Mr. Tom. Senator Young, it is correct.
    Senator Young. Ambassador?
    Ambassador Yamamoto Yes.
    Senator Young. Ambassador Miller, you are nominated to 
serve as our Ambassador to Bangladesh, and as we know, the 
Burmese military has conducted a systematic and horrific 
campaign of ethnic cleansing against the Rohingya. As a result, 
we see hundreds of thousands of Rohingya refugees in Bangladesh 
from Rakhine State in Burma.
    Along with Senator Merkley, I have been active in the 
Senate on issues related to Burma and this crisis, and I plan 
to continue my efforts.
    Mr. Ambassador, if confirmed, in coordination with our 
Ambassador to Burma, do I have your commitment you will keep 
this committee and my office regularly updated on the Rohingya 
crisis, related fallout from that crisis, and indicate to us, 
perhaps most importantly, how we can be helpful to you?
    Ambassador Miller, Well, thank you for the question, 
Senator, and thank you for your leadership on this important. 
And I certainly make that pledge.
    I would also want to recognize and thank Senator Merkley 
for leading the first congressional delegation to Burma and 
Bangladesh to see with his own eyes the ground truth of this 
immense humanitarian crisis.
    If confirmed, I pledge to continue to have this issue be 
one of the top priorities at the U.S. mission in Dhaka. As I 
had mentioned, the United States is very grateful that the 
government of Bangladesh has opened their borders and the 
people of Bangladesh have opened their hearts to over a million 
refugees for the last 2 decades, including 700,000 since 
August.
    I want to recognize the generosity of the American people. 
Their hard-earned taxpayer dollars are saving lives, and I will 
make it one of my top goals to make sure that continues to be 
the case and those dollars are spent wisely. Right now, they 
are providing protection, emergency shelter, food, health care, 
psychosocial support for the displaced, and host communities in 
Bangladesh. But we have to, Senator, also focus beyond the 
immediate needs of this vulnerable population and basic health 
and safety on medium and long-term planning. This crisis is not 
going to abate in the next year or possibly 2 or 3 years. So we 
are looking at schooling, livelihood training.
    And it is also imperative that any repatriation be fully 
voluntary, safe, and dignified. And Burma must commit to 
creating those conditions on the ground in Rakhine State. The 
military and security forces must end the violence and adhere 
to the rule of law. Those responsible for ethnic cleansing and 
other abuses should be held accountable.
    And in the letter that this committee sent to Secretary 
Pompeo last week urging a robust response to the crisis, Elie 
Wiesel, one of my heroes, was quoted as saying silence 
encourages the tormentor. I pledge to you and this committee, 
if confirmed, I will work tirelessly with you, with our superb 
interagency team in Dhaka, with Bangladeshi officials, our 
international partners to help the victims of this great 
injustice. Wiesel once said what all victims need above all is 
to know they are not alone, that we are not forgetting them, 
that when their voices are stifled, they can borrow ours, that 
while their freedom depends on us, the quality of our freedom 
depends on theirs. If confirmed, I would always remember as an 
American diplomat and public servant our lives no longer belong 
to us, they belong to those who need us desperately.
    Senator Young. Well, thank you, Mr. Ambassador. I am 
encouraged. You speak with such clarity and precision, 
thoughtfulness and eloquence on this issue.
    With that, Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations to each of you on your nominations. I look 
forward to working with each of you, if confirmed.
    Mr. Tom, you spoke quite eloquently in your opening 
statement about the importance of food security and what you 
have seen as you have traveled. I am troubled because in the 
last two presidential budgets, the administration has proposed 
to zero out the funding for Food for Peace and to steadily 
reduce funding for the international disaster assistance, which 
supports Food for Peace.
    So based on your experiences, what kind of impact do you 
think it would have if the United States dramatically reduces 
funding for food programs and steps away from the role that we 
have played in the world?
    Mr. Tom. Senator Shaheen, thank you so much for that 
question.
    If confirmed, I look forward to making sure that the United 
States, who has always been generous, been very passionate, and 
making sure that those around the world who are food insecure 
receive the resources they need to stabilize their lives.
    But let us face it. We live in the midst of a crisis 
globally where this year we have 11 percent more people hungry 
than we had a year ago. This is more than we can do ourselves. 
We need to reach out to our alliances around the world and 
again measure our success not by the dollars we invest but by 
those, the numbers, that we lift out of poverty.
    Senator Shaheen. I was encouraged about your comments about 
the importance of collaboration. I certainly agree with that. 
But as much as we collaborate, if we zero out a program, it 
still leaves a vacuum there. And so I am pleased to hear you 
say that you will advocate for continued funding for these 
important programs.
    One of the things that we know is that the administration 
is talking about a rescission in the State Department and USAID 
budgets of $2 billion to $4 billion. We do not know yet because 
we have not seen where that is going to come from, but we know 
that they intend to do it in a way that will prevent us from 
using those funds because it will be at the end of the year 
when those funds will expire. So I expect that we will see an 
impact on virtually all programs within the Department of State 
in a way that will be challenging.
    Ambassador Yamamoto, talk about, if you would, how we can 
continue to help our partners fight against the terrorist 
groups that we are seeing in Somalia. You talked about some of 
the progress that has been made, but what else can we do?
    Ambassador Yamamoto Thank you, Senator.
    We need to continue to support the African Union mission, 
the AMISOM forces, and to continue to work with our partner 
countries of the European Union, also other likeminded 
countries such as Japan and Korea and other countries to 
support and assist Somalia's effort to address the security 
needs of their country. And that means working and coordinating 
with President Farmaajo and the six regional states. And I 
think in that context we have been successful, and we are going 
to continue to be successful, if confirmed.
    Thank you.
    Senator Shaheen. Great. Thank you.
    Mr. Rosenblum, you talked about some of the changes that 
have been happening in Uzbekistan that are very welcome. One of 
the--I do not want to say the only reason, but one of the 
reasons that we have worked very closely with the Uzbek 
Government has been because of our efforts in Afghanistan, and 
Uzbekistan has been very cooperative in those efforts. As we 
see the continued evolution of the conflict in Afghanistan, are 
you concerned about any spillover into Uzbekistan and what 
might happen as the result of changes in that conflict?
    Mr. Rosenblum. Senator, thank you very much for that 
question.
    There is a potential for spillover in the conflict, and the 
Government of Uzbekistan is very aware of that. And for that 
reason, they have prioritized playing a constructive role in 
the reconciliation and peace efforts in Afghanistan. Just in 
the past few months, we have seen a kind of reinvigorated 
effort by the government in Uzbekistan to play that role. They 
hosted an international conference on peace in Afghanistan in 
March. They have invited members of the Afghan Government and 
the Taliban as well to talks in Tashkent. And we have been 
encouraging this. They have a strong stake, a strong interest 
in the settlement. They share a border, of course. And we think 
that they can play a very constructive role. And if I am 
confirmed, that will be one of the main priorities of 
engagement with Uzbekistan, both its role with respect to 
Afghanistan but also the broader neighborhood and to become a 
source of stability and peace in the neighborhood.
    Senator Shaheen. That is very encouraging, and what is 
happening there again is very encouraging. And I think that 
their engagement both in Afghanistan and in the region offers a 
real opportunity as we look at coming to a pivotal time in 
Afghanistan. So I look forward to working with you in that 
effort.
    Ambassador Miller, I really cannot say anything more to add 
to your statement. I was very pleased to hear what you had to 
say about what your priorities will be as Ambassador in 
Bangladesh and certainly look forward to working with you, if 
confirmed, in all of those efforts.
    Mr. Fischer, one of the disappointing things that we are 
seeing happen in Morocco, despite all of the progress in so 
many areas, has been their lack of success really in combating 
human trafficking. We have seen that some of the human rights 
violations that have happened in Morocco have increased in 
recent years. And can you talk a little bit about, if you are 
confirmed in your role as Ambassador, what you could do to 
encourage the Moroccan Government to better address both human 
trafficking and other human rights violations?
    Mr. Fischer. Senator, thank you very much for that 
question.
    Trafficking is and has been an issue in Morocco. They are 
ranked a tier 2 in the State Department's annual Trafficking in 
Persons report. The government does not fully meet at this time 
the minimum standards for elimination of trafficking, but it is 
my belief from what I have seen that they are trying to makes 
significant efforts to do so. In 2016, the Government of 
Morocco enacted a new anti-trafficking law prohibiting all 
forms of trafficking and establishing an inter-ministerial 
anti-trafficking commission. If confirmed, I will urge the 
Moroccan Government to increase its efforts to investigate and 
prosecute potential trafficking crimes, to identify trafficking 
victims, and provide protection services catering to the needs 
of those affected.
    Senator Shaheen. Well, thank you. I am pleased to hear 
that. So you are committed to continuing to speak up about 
those violations of human rights.
    Mr. Fischer. Senator, thank you.
    I am committed, if confirmed, and I will be more than happy 
to come back and discuss it with this committee.
    Senator Shaheen [presiding]: That is great. Thank you very 
much.
    I have to go vote, and since neither Senators Todd or 
Merkley are back, I am going to recess this hearing until they 
return.
    Again, thank you all very much for being here this morning 
and for your commitment to serve this country. As you all know, 
it is that public service that makes a difference for America 
and for our leadership in the world. So thank you all very 
much. [Recess.]
    Senator Merkley [presiding]: I am calling the subcommittee 
back into session, and thank you all for staying with us 
through this short break.
    I wanted to start with Mr. Rosenblum. And, Mr. Rosenblum, 
what role can Uzbekistan play in mediating or supporting talks 
between the Government of Afghanistan and the Taliban?
    Mr. Rosenblum. Senator, thank you for that question.
    It is a very important role that Uzbekistan can play. And 
since President Mirziyoyev became president, they have 
increasingly played a role in regional security, improving 
relations with their immediate neighbors, one of which is, of 
course, Afghanistan. And judging by some of their initiatives 
over the past few months, I think Uzbekistan is trying to 
promote peace and reconciliation in a very active way. It is 
clearly in their interest to have a stable neighbor.
    I think you recall that there was a high level 
international conference held in Tashkent in March hosted by 
the Government of Uzbekistan on Afghanistan. Uzbekistan has 
also been making efforts to boost trade with its neighbor. They 
have signed a number of trade agreements just in the past few 
months with Afghanistan. Uzbekistan supplies a lot of 
electricity to Afghanistan. Much of Kabul is powered by 
electricity coming down from Uzbekistan. And in all fields, we 
are seeing a very active effort on their part.
    So this is something that we have encouraged. It is 
something that we support. We want to make sure that their 
efforts are well coordinated with broader international efforts 
at reconciliation in Afghanistan. But as I said before, no one 
has more of a stake in stability and peace in Afghanistan than 
its neighbors, including Uzbekistan.
    Senator Merkley. Thank you.
    And you mentioned the power provided to Afghanistan. Can 
you describe the make-up of Uzbekistan's electric power and how 
that might potentially change over the years to come?
    Mr. Rosenblum. So Uzbekistan's power system, Senator, is 
primarily powered with oil and gas, some of which they produce 
themselves and some of which they bring in from neighboring 
countries. They do export electricity from that power 
generation to neighboring countries, including Afghanistan, as 
I mentioned.
    We also know that the Uzbek Government is very interested 
in developing renewable power, and we have worked through some 
projects under USAID to give them the technical capacity they 
need to develop that, especially solar and possibly wind. So 
this is an increasing move on the part of the government to 
diversify its energy generation, and it is something that we 
are working on together with them through technical assistance.
    Senator Merkley. Thank you very much.
    Ambassador Miller, will you urge on behalf of the United 
States the Government of Bangladesh to strengthen the 
infrastructure in the refugee camps and particularly provide 
for the opportunity for education for the children there?
    Ambassador Miller, I certainly will, Senator. I mentioned, 
when you stepped out, how much I appreciate your leadership on 
this issue and leading the first CODEL to see the facts on the 
ground.
    We met recently about what needs to be done to sustain this 
large population in Bangladesh. Not only will I do my utmost to 
make sure that they are being support in the camps in Cox's 
Bazar. We discussed their possible relocation to an island and 
how that could be problematic. Even with infrastructure and sea 
walls, moving 100,000 refugees to the island, as we talked 
about, could subject them to flooding during monsoons and high 
tides.
    So I want to make sure that any repatriation to Burma or 
inside Bangladesh is done in a fully voluntary, safe, and 
dignified manner. And if confirmed, Senator, one of my first 
trips would be to follow in your footsteps. I would get out to 
the camps as soon as I got into Bangladesh to see the ground 
truth for myself.
    Senator Merkley. Thank you very much.
    And you mentioned the island, Bhasan Char Island. This is a 
plan that I understand the Government of Bangladesh is going 
forward with, but it is my understanding that it is a low lying 
island. And you mentioned it has the possibility of flooding 
during the monsoon, plus it is just the isolation that occurs 
in that situation. So it sounds like the policy of the U.S. is 
to not encourage or to discourage the Government of Bangladesh 
from proceeding with that effort?
    Mr. Rosenblum. I checked on that question, Senator. The 
United States has not spent any U.S. taxpayer funds building 
infrastructure or supporting development on that island. It is 
an island built on the sediment from a river that runs into the 
Bay of Bengal and the delta. It is an island that during the 
monsoon season can effectively be under water. There are also 
some real issues with how you relocate 100,000 people. And the 
fact that the island is so isolated, it can become a target for 
piracy, trafficking, and other criminal activity.
    Senator Merkley. And are we concerned about ISIS recruiting 
from the refugees who are in a difficult situation, tightly 
crowded, monsoon rains coming down, not much future for 
economic opportunity?
    Mr. Rosenblum. Yes, sir, we certainly are. Historically the 
Rohingya have been moderate Muslim practitioners, but when you 
have a population of 700,000 living in desperate straights, in 
dire conditions, with the prospect of repatriation not clear at 
this point, we have to really be careful about the possibility 
for radicalization. Al Qaeda and ISIS are already using the 
Rohingya crisis in their propaganda internationally. And I 
would certainly work very closely with the Government of 
Bangladesh to keep a very close eye on that, sir.
    Senator Merkley. Thank you.
    My time is up, so I am going to yield to my colleague, 
Senator Kaine.
    Senator Kaine. Thank you, Senator.
    And congratulations to each of you for your nominations.
    Mr. Fischer, I want to talk to you about Morocco. I am the 
ranking Democrat on the subcommittee of the Foreign Relations 
committee that oversees the U.S.-Morocco relationship. The 
subcommittee is very broad. I call it Marrakech to Bangladesh. 
So there are a lot of countries to cover. But I have enjoyed 
both as governor and Senator interacting with Morocco, a very, 
very early, nearly immediate ally of the United States and a 
very critically important country. And I want to ask you a 
couple of questions about it.
    In the region that I serve on the subcommittee, there is an 
increasing pattern of government crackdowns on political 
activists, journalists, members of religious and ethnic 
minorities. And this includes most recently in Saudi Arabia the 
government seeking the death penalty for a non-violent 
activist, a 29-year-old woman from the Shiite minority. In 
Morocco in June, the government sentenced the leader of a 
protest movement from Morocco's Berber region and several other 
non-violent activists to 20-year prison terms.
    As the representative of this administration and the 
American people to Morocco, will you stand up for principles of 
justice, democracy, equality, and free speech?
    Mr. Fischer. Senator, thank you for that question.
    And the short answer is, if confirmed, absolutely yes. I 
look forward to working with the President's National Security 
Strategy which says governments that respect the rights of 
citizens remain the best vehicle for prosperity, human 
happiness, and peace.
    I invite you to Morocco. If confirmed, I would love to tour 
the country, look at those areas of interest with you. And 
again, if confirmed, I look forward to further working with 
this committee.
    Senator Kaine. I hope, if confirmed, that you will raise 
the issue of political detentions and sentencing with the 
government in an appropriate way and keep the committee 
informed on this.
    Morocco, unlike many of its neighbors, has not experienced 
a major terrorist attack since 2012, and that is due to very 
good work that is being done in Morocco. We need to give 
Morocco credit for that.
    But many foreign fighters from ISIS come from Morocco. As 
ISIS controls less and less territory and fighters seek to move 
on or return home, what existing programs or assistance can the 
U.S. provide to Morocco to help them deal with the potential of 
Moroccan native foreign fighters as they come back trying to 
stop them from engaging in destructive activity?
    Mr. Fischer. Well, thank you for that question, sir.
    The country of Morocco is doing a good job of trying to 
identify and create an environment to control anyone that has 
been radicalized. They practice a moderate Muslim faith, and 
that in itself and the export of a modern Muslim faith around 
Africa is very helpful to trying to control that. There are 
much fewer foreign fighters from Morocco. And if they return to 
Morocco, they are identified. In some cases, they are held. The 
country works to try to de-radicalize them. And they are 
absolutely being effective with this from what I have seen.
    Senator Kaine. I want to ask you one other Morocco 
question, and it is one that has been a longtime challenge for 
the nation and American administrations for many years, and 
that is the Western Sahara.
    In 2016, following remarks by U.N. Secretary-General Ban Ki 
Moon referring to occupied Western Sahara, Morocco expelled 
MINURSO, which is the U.N. peacekeeping operation civilian 
staff, and then military tensions escalated as both Moroccan 
and Polisario forces moved into the buffer zone that the U.N. 
staff had policed.
    Both parties did withdraw in time for the MINURSO mandate 
to be renewed in April of 2017, and then the civilian staff 
began to return. The mandate was set to expire in 2018. It was 
extended until October 2018.
    How likely is a new round of direct talks between Morocco 
and the Polisario Front? How realistic are expectations that 
those talks could move this stalemated perennial conflict into 
a new place?
    Mr. Fischer. Senator, thank you very much for that 
question.
    The United States continues to support the U.N.-led efforts 
to find a just, lasting, and mutually acceptable political 
solution to the conflict that provides for the self-
determination of the people of the Western Sahara.
    Recently former German President Horst Kohler, as the 
personal envoy of the U.N. Secretary-General for Western 
Sahara, was in Morocco. He has visited all of the appropriate 
players in the region. Kohler was in Morocco, Algeria, 
Mauritania and met with the Polisario, and they are in talks. 
And we hope that will be fruitful.
    If confirmed, I will be more than happy to come back and 
discuss that with this committee.
    Senator Kaine. Thank you very much.
    And I know that Senator Merkley asked a number of questions 
about Bangladesh, which is also in the Foreign Relations 
Subcommittee where I serve as the ranking member. I applaud the 
work of Senator Merkley and others who have really made this an 
area of focus. And I will say to you, Ambassador Miller, that I 
did not have a chance to hear your back-and-forth questions 
with Senator Merkley about that. But I think continuing to 
encourage Bangladesh to do the right thing in this significant 
humanitarian crisis is absolutely critical. And we sometimes 
have the experience of meeting with the Myanmar officials and 
meeting with Bangladeshi officials and kind of having finger 
pointing both ways.
    I think you are taking this job at an incredibly important 
time, should you be confirmed. I hope bringing the U.S. 
humanitarian assistance to bear on providing some solutions 
here would be a very top priority of yours.
    Mr. Fischer. It certainly will be, sir.
    Senator Kaine. All right. Thank you.
    Thank you, Mr. Chair.
    Senator Young [presiding]: Thank you, Senator.
    Mr. Rosenblum, I found your story about your father and his 
work to fight anti-Semitism powerful, compelling and something 
that I hope reaches a much broader audience.
    In the U.S. and abroad, we have seen a disturbing increase 
in anti-Semitic hate crimes and violence, and sadly we have 
seen in my home State of Indiana very recently. These anti-
Semitic acts are contrary to our values, contrary to what 
America is all about.
    So, if confirmed, I would just like to have each of your 
commitments from each one of you in your respective positions 
that you will do all you can to name, shame, and oppose anti-
Semitic statements and actions. Mr. Tom?
    Mr. Tom. Senator Young, you have my commitment.
    Ambassador Yamamoto Yes, sir. You have my commitment.
    Senator Young. Thank you, Ambassador.
    Mr. Rosenblum. You have my commitment, sir.
    Ambassador Miller, I do so pledge, Senator.
    Mr. Fischer. I do as well, sir.
    Senator Young. Thank you all.
    I have one additional question today, and then I will turn 
it over to Senator Merkley for additional questions, and if, 
Senator Kaine, you have additional questions, I want to afford 
you that opportunity.
    Ambassador Yamamoto, you note in your prepared statement 
that you have recently served as the Acting Assistant Secretary 
of State for African Affairs, and based on that experience, I 
would just like you to provide an update, if you will, on the 
situation in DRC with a particular focus on the need for Joseph 
Kabila to respect the constitutional term limits of his 
presidency and the need for credible elections this year.
    Ambassador Yamamoto Thank you, Senator.
    In that context, we have been committed to ensuring that 
there is a peaceful and proper transition from President Kabila 
to the next president and that the elections will take place as 
agreed to by all the parties this December. And we are working 
very hard to make sure that that happens.
    Senator Young. Well, I will look forward to working with 
you on that and being helpful however I can with you and others 
at the State Department.
    As the chairman of the subcommittee that oversees the 
United Nations, can you also provide us an update on the U.N. 
peacekeeping mission there?
    Ambassador Yamamoto The U.N. peacekeeping mission continues 
to face difficult challenges not only because of the security 
situation in the Congo. It is certainly one of our largest and 
the longest serving operations on the continent. Again, the 
United States remains very committed to supporting the U.N. 
operations and ensuring the success in also not stabilizing the 
Congo but also ensuring the elections take place.
    Senator Young. Thank you, Ambassador.
    Senator Merkley?
    Senator Merkley. Thank you.
    Ambassador Yamamoto, will you initially be serving, if 
confirmed, from within the country or operating out of Nairobi?
    Ambassador Yamamoto We are very hopeful that we will go 
directly into Mogadishu.
    Senator Merkley. That would be tremendous. And one of the 
challenges described by the team in Somalia has been that 
unlike the State Department delegations from other countries, 
our delegation has been restricted to the military compound in 
Mogadishu. Do you foresee that that might change?
    Ambassador Yamamoto In my first time there in 2016, we were 
able to get out to the outskirts of Somalia and we hope to 
continue to do that because we need to engage the six regional 
leaders and also help coordination with the regional leaders 
and the federal government. And at this point, we can get 
outside Mogadishu.
    Travel within Mogadishu is another issue. It is a 
challenge. It is difficult. It is dangerous. It is challenging. 
And, of course, from our windowless bunker accommodations, we 
will see opportunities, but again, we will take it as security 
merits.
    Senator Merkley. The ``New York Times'' has been reporting 
on the use of drone strikes out of Djibouti against Al Shabaab. 
Do you have any sense of the effectiveness of this as a 
military strategy, and is there a purely military strategy for 
trying to change the divided and civil conflict that is 
occurring?
    Ambassador Yamamoto Thank you very much, Senator.
    In my previous role as the Acting Assistant Secretary, we 
have held lengthy discussions not only with General Waldhauser 
the COCOM Commander for Africa Command but also with other 
commanders from SOCOM and other commands.
    The issue is that there is no military solution in Somalia. 
There is not. Everyone realizes and understands that. Yes, the 
AMISOM forces have been very successful in containing the 
rebels and the Shabaab elements, but the answer is that it has 
to be a whole-of-government approach. And that means you have 
to have strong institutions, democratic institutions that are 
accountable to the people. You need to have fighting 
corruption. You need to have the government with the regional 
states working closely together to ensure that there is 
economic development, stability, fighting corruption, and 
working together.
    Senator Merkley. So one of the things that was brought to 
my attention by the president of Somalia was that the extensive 
trade in charcoal was resulting in devastating deforestation, 
that they had lost 80 percent of their forests in the last 30 
years, and that the sale of charcoal was funding Al Shabaab. 
Any sense of how we can take on this challenge?
    Ambassador Yamamoto Thank you, Senator.
    We have worked with the United Nations to restrict the 
sales of charcoal, which is also being used by the Shabaab to 
earn money for their operations. We have worked with the 
government and, if confirmed, will continue to work with 
President Farmaajo and his government to ensure that we do not 
have deforestation. Again, if you have 50 percent of the people 
in need of food assistance and you have almost 25 percent 
displaced and largely because of the climatic control problems, 
then we need to do much more to ensure that we address the 
climate issues and also the problems generated by the charcoal 
factory.
    Thank you.
    Senator Merkley. I am not sure if this is the case that 
Somalia is the single worst case of deforestation in the last 3 
decades, but it is one of the top. And as you mentioned, the 
funding of not just using charcoal internally for very low 
income individuals seeking to heat their food but also the sale 
of it abroad and I gather to some of the surrounding nations.
    So I wanted to turn, Mr. Tom, to the issues that you are 
about to undertake, very important issues for food and 
agriculture. Do you have any sense on how climate chaos is 
affecting fisheries and forests and aggravating the challenges 
of agriculture?
    Mr. Tom. Senator Merkley, thank you for that question.
    As a U.S. producer, we know that our family over the seven 
generations and the entire industry has always dealt with 
climate change. We know we need to adapt. And fortunate for us 
here in the United States, we have had the benefit of land 
grant universities and the private sector and our own sources 
to try to make sure we can deal with effects of any changes 
that are happening to the climate.
    Not so is the case when you get into the many food-
desperate nations around the world that are food insecure. One 
of my goals with working with the Food and Agriculture 
Organization will be to instill resilience and make sure that 
we can develop the capacity but give them the tools to work 
with the changing climate that is occurring in many of these 
desperate countries across Africa and the Middle East.
    Senator Merkley. Thank you, Mr. Tom. And I really look 
forward to the work you are going to do because this issue of 
food scarcity is affecting so many people. There is a high 
level of burnout in the United States in terms of absorbing the 
information. It is actually why I went to northern Africa to 
visit two of the four famines. We in the committee here have 
held hearings on the four famines, which I have appreciated. 
But the U.N. agencies that you will be involved in are 
critically important. Thank you.
    And, Mr. Fischer, I appreciate your interest in Morocco and 
was happy to learn that you had been there several times in the 
course of your life out of just general interest or a business 
interest.
    There are a couple issues that committee staff raised that 
are important to give you a chance to address. There was a 
concern over the--I believe it is 1987--1987 case involving 
Linda Day and her concerns both about her treatment in the 
company and about the way she was terminated. And we know a 
settlement followed. But would you submit to the committee a 
detailed accounting of that situation so that members can 
examine that?
    Mr. Fischer. Senator, thank you for that question.
    As we had the opportunity yesterday and I welcome the 
opportunity to talk about it again, we have talked about it 
with Senator Menendez's office. We have given a great deal of 
detail. That case was dismissed without prejudice. The counts 
in the lawsuit were all dismissed. Please recall that while I 
own the company--I am the registered agent--I was named in the 
suit because I own the company. There was no history. There was 
no discussion. There was not a hint of an allegation against 
me. But we welcome again the opportunity to provide the entire 
committee any and all information.
    Senator Merkley. Mr. Fischer, thank you. So you would 
submit a detailed explanation of that for the committee?
    Mr. Fischer. But of course. I welcome the opportunity.
    Senator Merkley. Thank you.
    I just feel compelled to note that on that particular case, 
it was not just that you were the head of the company. It was 
also conversations that the individual had had directly with 
you about the situation. So please make sure to address that 
particular piece of it as you submit your description.
    The other issue that the committee was somewhat troubled by 
was that this was not on the list of lawsuits that you 
initially submitted in your statements. You have already 
explained that to me, but again, if you will explain that in 
writing to the committee, that would be helpful to individuals.
    And I think the third issue was the issue of recusing 
yourself in the case of Judge Gorcyca and then un-recusing 
yourself. You are welcome to address it now, but if you would 
like to just submit a written explanation of that, that would 
be helpful.
    Mr. Fischer. As we discussed yesterday, I welcome the 
opportunity. I served on the State of Michigan Judicial Tenure 
Commission, as requested. There are seven members to the 
judiciary and two independents. I served for 6 years, and I 
would be more than happy to discuss that and look forward to 
that opportunity.
    Senator Merkley. Thank you. The reason I am suggesting you 
just submit it in writing is the members who are not here would 
just appreciate to have the chance to understand it. And that 
way it is just easier than talking to each person.
    Mr. Fischer. We absolutely will, sir.
    Senator Merkley. Thank you.
    And Morocco is an incredibly important nation and 
fascinating nation with such a unique history. And are there 
any final comments you would like to share in terms of your 
interest in serving there?
    Mr. Fischer. Well, sir, thank you for the opportunity. 
Thank you, Senators, for the opportunity to come today.
    My wife and I have been to Morocco. It is a fabulous 
country. There is lots of opportunity to grow commerce, to grow 
counterterrorism efforts. We look forward to, hopefully, 
hosting you, if you can come, and we can tour the country and 
look at the opportunity. Commerce is better. With the free 
trade agreement, we have seen over a 300 percent increase in 
commerce. And as I say, they are great counterterrorism 
partners of ours. There is a lot to look forward to serving, if 
confirmed. And I, again, invite you to come to Morocco and we 
can discuss it, or I will come back and appear before the 
committee.
    Senator Merkley. Professor John Damis at the Portland State 
University is one of the few Americans to have ever received 
the highest honor from the Government of Morocco for his work 
on their country. Unfortunately, he has passed away, but I 
wanted to mention him because of the extensive work that he did 
and the relationship between the United States and Morocco and 
the important work that was done at Portland State.
    Thank you very much.
    Mr. Fischer. Thank you, sir.
    Senator Young. Well, I want to thank all of our nominees 
for your appearance here today before the committee, for your 
strong desire to serve our country in these important 
positions.
    For the information of members, the record of today's 
hearing will remain open until the close of business on Friday, 
including for members to submit additional questions for the 
record.
    Thank you again to each of you, to your families.
    This hearing is now adjourned.


    [Whereupon, at 11:27 a.m., the hearing was adjourned.]



                              ----------                              




              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
              David T. Fischer by Senator Robert Menendez

    Question 1. In your preparations to serve as the U.S. Ambassador to 
Morocco, do you believe that there has been any impact on U.S.-Moroccan 
relations?

    Answer. In his capacity as Chairman of the Al Quds committee in the 
Organization of Islamic Cooperation, King Mohammed VI addressed a 
letter to President Trump expressing his concern about U.S. plans to 
move our Embassy to Jerusalem, while at the same time recognizing the 
importance of the United States in the region and praising the historic 
role of the United States in working toward Middle East peace. 
Following the U.S. announcement, there were peaceful demonstrations in 
Morocco. However, the U.S.-Morocco relationship remains strong.

    Question 2. In your view, should the objective of U.S. diplomacy on 
the Israeli-Palestinian conflict be a two-state solution?

    Answer. The President has stated that the United States will 
support a two-state solution if it is agreed to by both sides. The 
administration has emphasized that in its efforts to advance a 
comprehensive and lasting peace between Israel and the Palestinians, it 
does not seek to impose a solution on the parties. Instead, it intends 
to present a plan that offers a brighter future to both Israel and the 
Palestinians when the time is right. If confirmed, I look forward to 
supporting the work of White House Senior Advisor Jared Kushner and 
Special Representative for International Negotiations Jason Greenblatt 
from the Department of State.

    Question 3. What role will you play in ensuring that Israel's 
Qualitative Military Edge is ensured as future Foreign Military Sales 
to Morocco are considered?

    Answer. I share the administration's view that Israel's security is 
a top U.S. foreign policy priority, and will uphold its commitment to 
ensuring Israel maintains its Qualitative Military Edge (QME). If 
confirmed, I will work closely with the Department of State and the 
Kingdom of Morocco to ensure that transfers of U.S.-origin defense 
articles to Morocco, including by Foreign Military Sales, conform to 
the U.S. commitment to Israel's QME.

    Question 4. What is the Moroccan Government's preferred outcome for 
Western Sahara? Does the United States share this view? How do you plan 
to approach this issue set, if confirmed?

    Answer. In 2007, Morocco proposed an autonomy plan for the Western 
Sahara. The plan is serious, credible, and realistic, and represents 
one potential approach to satisfy the aspirations of the people in 
Western Sahara.If confirmed, I will continue the U.S. policy of 
supporting the U.N.-led diplomatic process and efforts to find a just, 
lasting, and mutually acceptable political solution that provides for 
the self-determination of the people of Western Sahara.

    Question 5. Should the United States encourage direct negotiations 
between Morocco and the Polisario with preconditions?

    Answer. In April 2018, the United States supported U.N. Security 
Council Resolution 2414, which calls upon the parties to resume 
negotiations under the auspices of the Secretary-General without 
preconditions and in good faith. If confirmed, I will encourage Morocco 
to work with Horst Kohler, the Personal Envoy of the U.N. Secretary 
General for Western Sahara, as he seeks to bring the parties together 
for negotiations.

    Question 6. Please describe the Morocco-Algeria relationship as you 
understand it. What role can the U.S. Ambassador to Morocco play in 
improving relations between these two neighbors?

    Answer. Relations between Morocco and Algeria are complicated. 
Moroccan Foreign Minister Nasser Bourita traveled to Algiers in January 
2018--the first such trip by a Moroccan Foreign Minister since 2012. 
While there are direct flights between the countries, their land 
borders have been closed since 1994.
    The U.S. Government has urged both Algeria and Morocco to recognize 
that better relations would enable both countries to address shared 
bilateral and regional issues such as terrorism, illegal migration, 
drug trafficking, and trade integration. The State Department sponsors 
regional security and counterterrorism workshops in which officials 
from both countries participate. Over the last year, the State 
Department has organized several educational and exchange programs that 
include young people from both countries.

    Question 7. What is your understanding of Moroccan investment in 
renewable energy? If confirmed as Ambassador to Morocco, what role do 
you envision for the United States in supporting or reinforcing 
renewable energy initiatives in Morocco?

    Answer. Morocco is working to diversify its energy sector and use 
renewable resources to account for up to 52 percent of its installed 
electrical generation capacity by 2030. In January, Morocco inaugurated 
the second phase of its Noor solar energy complex, making it one of the 
largest concentrated solar power plants in the world.
    Morocco's renewable energy sector presents significant 
opportunities for U.S. businesses. The U.S. Government is also 
collaborating on several initiatives with the Government of Morocco to 
support renewable energy. For example, the State Department is working 
with small Moroccan businesses to increase their involvement in the 
renewable energy sector and connect them to U.S. firms. If confirmed, I 
will support continued collaboration with Morocco in the energy sector.

    Question 8. Please describe your understanding of Morocco's 
investment climate. If confirmed as Ambassador to Morocco, what would 
be your priorities in encouraging improvements in the investment 
climate?

    Answer. The World Bank ranked Morocco 69 out of 190 for ease of 
doing business in 2017. Morocco has made progress in implementing sound 
macro-economic policies, trade liberalization, investment incentives, 
and structural reforms. As a former business leader who understands the 
importance of these reforms, I will urge the Government of Morocco to 
continue to improve the business climate. I will work with the 
Government of Morocco to better protect U.S. intellectual property in 
Morocco, and support the Government of Morocco's efforts to increase 
transparency and accountability.

    Question 9. Are foreign fighters returning from Iraq and Syria to 
Morocco a concern for the United States?

    Answer. The travel of foreign terrorist fighters from Iraq and 
Syria to Morocco, or to any other country, poses a threat to U.S. 
interests. The U.S. Government is collaborating with Morocco and other 
countries around the world to address the issue through mechanisms such 
as U.N. Security Council Resolution 2396 (2017), which calls for 
improved information sharing, technical assistance, and a whole-of-
society approach to address this threat.

    Question 10. Is it your assessment that the Moroccan Government is 
prepared to deal with this challenge?

    Answer. Morocco works closely with the United States and dedicates 
significant resources to addressing all aspects of this problem, 
including monitoring the return of foreign terrorist fighters. Morocco 
has expanded its counterterrorism law, makes concerted use of law 
enforcement and community engagement tools, and cooperates and shares 
information with its counterterrorism partners. Moroccan law 
enforcement, coordinating with the Ministry of Interior, aggressively 
targets and effectively dismantles terrorist cells by leveraging 
intelligence collection, police work, and collaboration with 
international partners.

    Question 11. What steps can the United States take to assist 
Morocco in dealing with the challenge of returning foreign fighters?

    Answer. The U.S. Government collaborates directly with Moroccan law 
enforcement, including through sharing information. The State 
Department supports enhancements to Morocco's aviation security and 
technical assistance to stop terrorist financing and prosecute 
terrorists.
    In addition, USAID and State Department assistance supports 
community policing programs and socioeconomic and educational 
opportunities for at-risk youth, making terrorist recruitment more 
difficult.

    Question 12. What is your understanding of Hezbollah's presence and 
activities in Morocco?

    Answer. Morocco shares the United States' concern about Hizballah's 
malign activities and destabilizing role in the region. Morocco 
supported the November 2017 Arab League condemnation of Hizballah as a 
terrorist organization. Moroccan authorities also arrested Hizballah 
financier Kassim Tajideen in March 2017 at Casablanca Airport when 
Tajideen sought to transit through Morocco from Guinea to Beirut. If 
confirmed, I will work with Government of Morocco to advance our strong 
counterterrorism cooperation.

    Question 13. In your preparations to serve as U.S. Ambassador to 
Morocco, is there reason to be concerned about malign Iranian 
interference and activities in Morocco?

    Answer. Iranian influence around the world is a significant cause 
for concern. However, since 1979, Morocco has not had a close 
relationship with Iran. Morocco and Iran severed diplomatic ties 
between 1981 and 1991, between 2009 and 2014, and again in May of this 
year. The countries do not have significant economic or cultural ties 
and Morocco has made clear its opposition to Iran's malign influence in 
the region.

    Question 14. In your preparations to serve as Ambassador to 
Morocco, what forms of U.S. assistance to Morocco have been most 
effective and which have the support of the Moroccan Government? If 
confirmed as Ambassador, what will your priorities be with respect to 
U.S. assistance? Do you anticipate any changes in funding levels or 
priorities?

    Answer. The Government of Morocco actively seeks and appreciates 
American technical advice. The Government of Morocco values U.S. 
Government assistance, and in many cases uses its own funds to continue 
and expand programs started through such assistance. The Millennium 
Challenge Corporation's compact and USAID's programming in Morocco, two 
of the largest components of our bilateral assistance, are good 
examples of particularly effective programs that have the Government of 
Morocco's support. If confirmed, I will consult with implementing 
agencies and other stakeholders to identify priorities and determine 
how U.S. Government assistance can be even more effective.

    Question 15. Do you believe that reforms toward more inclusive 
governance should be a priority for the United States in its engagement 
with Morocco?

    Answer. Morocco has made progress to implement the democratic 
reforms envisioned in the 2011 constitution, including by passing laws 
to give citizens and civil society the right to petition the Government 
and propose legislation, and to create a framework to decentralize 
government authorities and give regionally elected bodies more 
budgetary and decision-making authority.
    USAID and the State Department are helping to support this effort 
by building the capacity of citizens, civil society, and political 
parties to engage local government institutions and to improve 
government transparency. If confirmed, I will continue supporting these 
efforts.

    Question 16. Have you read the 2017 State Department Human Rights 
Report on Morocco? What specific steps can the Moroccan Government take 
to address human rights concerns? Do you plan to raise these concerns 
with officials from the Government if confirmed?

    Answer. I have read the State Department's 2017 Human Rights Report 
on Morocco. If confirmed, I will maintain close consultations with the 
Moroccan Government on human rights issues. I will encourage the 
Government of Morocco to strengthen implementation of laws related to 
gender-based violence and trafficking in persons, enhance its efforts 
to combat child marriage, and extend the protections offered by the 
2016 Press Code law to more journalists. I will stress the importance 
of the equal and transparent application of the laws governing 
religious organizations.

    Question 17. Do you agree with the assessment of Human Rights Watch 
that there has been a ``serious deterioration of the human rights 
climate'' in Morocco in connection with the crackdown on protests in 
the Rif region?

    Answer. Hundreds of protests took place in the Rif region in 2016 
and 2017, and the majority proceeded peacefully. Police did use tear 
gas to disperse crowds on several occasions, and arrested hundreds of 
protesters, alleging that many of them had participated in violence and 
destruction of property.
    In October 2017, the king removed five high-level officials, which 
many observers saw as a signal of his determination to ensure the 
Government is responsive to the protesters' socioeconomic concerns. The 
king emphasized the need for greater socioeconomic development in 
speeches to the nation in 2017 and 2018, and recently pardoned more 
than 180 protesters.

    Question 18. What are your views on the PJD and its role in 
Morocco's Government?

    Answer. Following the ratification of Morocco's current 
constitution in 2011, the Islamist-leaning Party of Justice and 
Development (PJD) won a plurality of parliamentary seats in the 
November 2011 and October 2016 elections. The PJD participates in 
government as part of a multiparty coalition. Its core issues are 
creating jobs and fighting corruption.
    The current Head of Government Saadeddine El Othmani, a former 
Minister of Foreign Affairs, belongs to the PJD party and shares 
responsibility for the executive branch with King Mohammed VI.

    Question 19. Do you believe that it is important for the U.S. 
Ambassador to meet with members of civil society, non-governmental 
organizations, human rights activists, and journalists?

    Answer. If confirmed, I look forward to meeting with members of 
civil society, non-governmental organizations, human rights activists, 
and journalists. I believe that these meetings will be an important 
part of my role as Ambassador, and that hearing from these 
organizations and individuals will help the U.S. mission to be more 
effective in advancing our priorities, including human rights.

    Question 20. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Much of my philanthropic and business career has been 
devoted to promoting human rights, democracy and the rule of law. For 
instance, while serving on the Board of Trustees of Oakland University, 
I dedicated a large amount of time and energy to supporting initiatives 
related to diversity and inclusiveness; fostering a warm and productive 
relationship between the University and the surrounding community; 
supporting non-traditional students; and also ensuring that we support 
areas of study that allow students to utilize their talents to make a 
difference in our community as well as across the globe. The impact is 
evident when we succeed in our community growing in inclusion and 
moving forward as one. For decades, my work within community, 
nonprofits, and education has been focused on taking steps to ensure 
everyone has a fair and equitable opportunity--in education, in 
healthcare and in life.

    Question 21. What issues are the most pressing challenges you see 
to democracy or democratic development in Morocco? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. In order to continue to advance its democratic development, 
Morocco will need to strengthen its political and administrative 
institutions and address citizen concerns about corruption. The State 
Department has also registered its continuing concerns about 
allegations of mistreatment of detainees by security forces; 
restrictions on the freedoms of expression, assembly, association, and 
religion; and discrimination against women. If confirmed, I look 
forward to working closely with Moroccan leaders to encourage progress 
on these issues.

    Question 22. What specific steps will you take--if confirmed--to 
support democracy in Morocco? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. In 2015, Morocco passed a legal framework to decentralize 
government authorities and give regionally elected bodies more 
budgetary and decision-making authority. USAID and the State Department 
are helping to support this effort by building the capacity of 
citizens, civil society, and political parties to engage local 
government institutions and to improve government transparency. If 
confirmed, I will continue to support Morocco's efforts to accelerate 
democratic reforms as outlined in its 2011 constitution.

    Question 23. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will prioritize accountability and 
effectiveness in administering U.S. Government assistance. I will 
consult with implementing agencies, NGOs and political parties in 
Morocco, the Government of Morocco, and other stakeholders to determine 
the most effective way to support Morocco's democratic development.

    Question 24. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Morocco? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and in Morocco. As I have seen in Michigan, the U.S. Government 
is most effective when it works together with civil society. I will 
encourage the Government of Morocco to fairly and transparently apply 
the laws governing NGOs and civil society organizations.

    Question 25. If confirmed, do you commit to meet with 
democratically-oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I look forward to meeting with a range of 
political leaders and encouraging greater participation in political 
processes. Morocco's democratic reforms as outlined in the 2011 
constitution offer opportunities for the United States to work together 
with Morocco to make political processes more inclusive.

    Question 26. Will you and your embassy team actively engage with 
Morocco on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Morocco?

    Answer. Freedom of the press strengthens accountability and 
democratic governance. If confirmed, I look forward to meeting with 
independent, local press in Morocco and to encouraging the Government 
of Morocco to strengthen press freedom.

    Question 27. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will work with civil society and the 
Government of Morocco to counter disinformation and propaganda.

    Question 28. Will you and your embassy teams actively engage with 
Morocco on the right of labor groups to organize, including for 
independent trade unions?

    Answer. With some restrictions, the constitution of Morocco 
provides workers with the rights to form and join unions, strike, and 
bargain collectively. The Government generally respects freedom of 
association and the right to collective bargaining. If confirmed, I 
will encourage the Government of Morocco to continue to respect 
internationally recognized workers' rights consistent with its laws and 
the U.S.-Morocco Free Trade Agreement.

    Question 29. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Morocco, no 
matter their sexual orientation or gender identity? What challenges do 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Morocco? What specifically will you commit to do to help LGBTI people 
in Morocco?

    Answer. There are many challenges facing LGBTI people in North 
Africa and the Middle East. If confirmed, I commit to defending the 
human rights and dignity of all people in Morocco, and I look forward 
to fostering a more open discussion of LGBTI issues.

    Question 30. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Morocco? Will 
you commit to meet with representatives of a diverse swath of religious 
groups and communities and to advocate for their ability to register 
and worship peacefully in the country?

    Answer. The Moroccan constitution provides for freedom of worship 
and freedom of conscience, and Morocco has hosted numerous 
international conferences that promote interfaith values. I have seen 
firsthand how Morocco's Jewish community benefits from Morocco's long 
tradition of religious tolerance and coexistence. However, some 
religious minorities in Morocco continue to report discrimination.
    If confirmed, I look forward to meeting with a wide variety of 
religious leaders in Morocco and maintaining an active dialogue with 
the Moroccan Government on religious freedom issues.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             David T. Fischer by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Much of my philanthropic and business career has been 
devoted to promoting human rights, democracy and the rule of law. For 
instance, while serving on the Board of Trustees of Oakland University, 
I dedicated a large amount of time and energy to supporting initiatives 
related to diversity and inclusiveness; fostering a warm and productive 
relationship between the University and the surrounding community; 
supporting non-traditional students; and also ensuring that we support 
areas of study that allow students to utilize their talents to make a 
difference in our community as well as across the globe. The impact is 
evident when we succeed in our community growing in inclusion and 
moving forward as one. For decades, my work within community, 
nonprofits, and education has been focused on taking steps to ensure 
everyone has a fair and equitable opportunity--in education, in 
healthcare and in life.

    Question 2. What are the most pressing human rights issues in 
Morocco? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Morocco? What do 
you hope to accomplish through these actions?

    Answer. Human rights issues in Morocco include restrictions on the 
freedoms of expression, assembly, association, and religion; 
discrimination against women; corruption; and allegations of 
mistreatment of detainees by security forces. If confirmed, I will work 
closely with Moroccan leaders to encourage continued progress on these 
issues.
    In 2018, the State Department plans to launch projects to support 
civil society groups advocating for greater gender equality and 
supporting women's leadership, in addition to ongoing USAID programs 
building the capacity of citizens and locally elected officials to 
ensure a more inclusive government that represents the interests of all 
citizens, especially women, youth, and marginalized groups.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Morocco in 
advancing human rights, civil society and democracy in general?

    Answer. Since Morocco adopted a new constitution in 2011, Morocco's 
parliament has passed a number of laws enacting reforms envisioned in 
the constitution.
    In recent years, Morocco's parliament has passed laws designed to 
fight trafficking in persons, violence against women, and corruption; 
provide for an independent judiciary; and protect journalists. However, 
fully implementing these laws will require additional resources, 
greater institutional capacity, and continued efforts at all levels of 
the Moroccan Government.

    Question 4. Do you agree with the assessment of Human Rights Watch 
that there has been a ``serious deterioration of the human rights 
climate'' in Morocco in connection with the crackdown on protests in 
the Rif region? What is the state of press freedom in Morocco?

    Answer. Hundreds of protests took place in the Rif region in 2016 
and 2017, and the majority proceeded peacefully. Police did use tear 
gas to disperse crowds on several occasions, and arrested hundreds of 
protesters, alleging that many of them had participated in violence and 
destruction of property. In October 2017, the king removed five high-
level officials, which many observers saw as a signal of his 
determination to ensure the Government is responsive to the protesters' 
socioeconomic concerns. The king recently pardoned more than 180 
protesters.
    Independent media continue to be active in Morocco and express a 
wide variety of views. In 2016, parliament passed a new press code that 
limits punishments for accredited journalists to fines, although many 
contributors working for online news outlets are not covered. Three 
journalists were prosecuted under the press code during 2017, compared 
with eight in 2016.

    Question 5. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Morocco? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. These are issues that have long been important to me. If 
confirmed, I look forward to meeting with human rights, civil society, 
and other non-governmental organizations in the United States and in 
Morocco. I will continue the Embassy's strong compliance with the Leahy 
Law and maintain robust vetting procedures.

    Question 6. Will you and your embassy team actively engage with 
Morocco to address cases of key political prisoners or persons 
otherwise unjustly targeted by Morocco?

    Answer. These are issues of great importance to me. If confirmed, I 
look forward to continuing the State Department's close consultations 
with the Moroccan Government on human rights issues.

    Question 7. Will you engage with Morocco on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will make promoting human rights, civil 
rights, and good governance one of my highest priorities.

    Question 8. Where has Morocco been most successful in countering 
TIP, and why hasn't it fully implemented State Department TIP 
recommendations?

    Answer. In 2016, the Government of Morocco enacted a new anti-
trafficking law prohibiting all forms of trafficking, and has increased 
prosecutions under the new law. The Government also worked to reduce 
vulnerability to trafficking by enacting a new law regulating domestic 
work and by extending legal protections and social services to 
irregular migrants. Nevertheless, the Government did not report 
screening for trafficking victims or providing them protection 
services. The State Department continues to encourage the Government to 
implement identification procedures and provide appropriate protection 
services for victims of all forms of trafficking in Morocco, which will 
require continued political will and additional resources, personnel, 
and training.

    Question 9. What is Morocco's current approach toward migrants and 
migration control, and how has the EU shaped this approach, if at all?

    Answer. In 2013, the Moroccan Government launched a National 
Strategy for Immigration and Asylum, which provides refugees with legal 
residency and access to healthcare, education, and justice. Morocco has 
undertaken to regularize tens of thousands of irregular migrants. 
Throughout these campaigns, Morocco has received significant 
development assistance support from European partners. Morocco also 
cooperates closely with Spain to manage their shared borders.

    Question 10. If confirmed, what will you do to combat religious 
discrimination in Morocco?

    Answer. The Moroccan constitution provides for freedom of worship 
and freedom of conscience, and Morocco has hosted numerous 
international conferences that promote interfaith values. I have seen 
firsthand how Morocco's Jewish community benefits from Morocco's long 
tradition of religious tolerance and coexistence. However, some 
religious minorities in Morocco continue to report discrimination.
    If confirmed, I look forward to meeting with a wide variety of 
religious leaders in Morocco and maintaining an active dialogue with 
the Moroccan Government on religious freedom issues.

    Question 11. What are your view, what more can the United States do 
to help resolve the four-decade dispute between Morocco and the 
independence-seeking Polisario Front over Western Sahara?

    Answer. The United States supports the U.N.-led diplomatic process 
for Western Sahara and efforts to find a peaceful, sustainable, and 
mutually acceptable political solution to the conflict that provides 
for the self-determination of the people of Western Sahara. In April, 
the United States supported U.N. Security Council Resolution 2414, 
which extended the U.N. peacekeeping mission's mandate for only six 
months. The shortened mandate signaled the Security Council's desire to 
see political progress.
    Former German President Horst Kohler, the U.N. Secretary-General's 
Personal Envoy for Western Sahara, traveled to the region in June and 
met with the Governments of Morocco, Algeria, and Mauritania. He also 
met with the Polisario and visited Western Sahara. The next step is for 
Personal Envoy Kohler to bring the parties together for talks.

    Question 12. How likely is a new round of direct talks between 
Morocco and the Polisario, and what might the talks realistically 
accomplish? What is your assessment of MINURSO's current ability to 
fulfill its mandate, given changes to civilian staffing since 2016 and 
worsening security conditions on the eastern side of the ``berm'' 
demarcating Moroccan and Polisario control?

    Answer. Morocco and the Polisario have not met directly since 2012, 
and progress in resolving the dispute over Western Sahara will require 
the parties to work together. If confirmed, I will encourage Morocco to 
continue to work closely with Horst Kohler, the Personal Envoy of the 
U.N. Secretary-General for Western Sahara, as he seeks to bring the 
parties together for talks.
    It is my understanding that MINURSO continues to effectively 
implement its mandate to monitor the ceasefire between Morocco and the 
Polisario. The U.N. Secretary General, in his March 2018 report on 
Western Sahara, noted that MINURSO has conducted a range of reviews and 
assessments to strengthen security, improve performance, and reorganize 
staffing in order to achieve its goals more efficiently. The United 
States supported U.N. Security Council Resolution 2414 (2018), which 
urged MINURSO to continue to consider how new technologies could be 
used to reduce risk, improve force protection, and better implement its 
mandate.

    Question 13. What is the administration's approach to implementing 
provisions in foreign aid appropriations measures--such as 
<l-arrow>7041(h) of the FY 2017 Consolidated Appropriations Act (P.L. 
115-31), carried into FY 2018 via continuing resolutions--that funds 
for global bilateral economic assistance ``shall be made available'' 
for programs in Western Sahara?

    Answer. The State Department has provided assistance through the 
Middle East Partnership Initiative to implement a civil society and 
local governance program in Western Sahara. In May, the Department 
issued a Middle East Partnership Initiative Notice of Funding 
Opportunity soliciting proposals to implement a project to promote 
economic private sector economic growth in Western Sahara.

    Question 14. On May 1, 2018, Morocco broke diplomatic relations 
with Iran, citing alleged Iranian proxy support for the Polisario Front 
(which seeks independence for Western Sahara). This is the second time 
Morocco has broken ties with Iran over the past decade.

   Is there any evidence, to your knowledge, that Iran views Morocco 
        as a primary adversary or the Polisario Front as a potential 
        proxy with which to undermine it?

    Answer. I am not aware of evidence that would support either view.

    Question 15. As Morocco and other countries respond to the ongoing 
return of foreign fighters from Syria, Iraq, and Libya, what is the 
appropriate balance--in your view--between law enforcement responses 
and efforts to reintegrate these individuals into civilian life?

    Answer. Both law enforcement and programs to counter violent 
extremism and terrorist recruitment play important roles in Morocco's 
preparedness for the return of foreign terrorist fighters. Morocco 
dedicates significant resources to tracking foreign fighters, 
prosecuting crimes related to terrorism, reintegrating individuals who 
do not pose a threat, and limiting the spread of violent extremism. 
Moroccan law enforcement units, coordinating with the Ministry of 
Interior, aggressively target and effectively dismantle terrorist cells 
by leveraging intelligence collection, police work, and collaboration 
with international partners.

    Question 16. What types of CVE activities have proven most 
effective in Morocco?

    Answer. Different types of activities can all play important roles 
in countering violent extremism in Morocco. The Government of Morocco 
takes a holistic approach to addressing the threat of violent 
extremism, including by promoting the Maliki school of Islamic 
jurisprudence, which it views as less susceptible to violent extremism. 
Several U.S. Government programs work towards countering violent 
extremism through counter-messaging, community engagement, and social 
and economic empowerment. For example, USAID's CVE programs provide at-
risk youth with increased access to socioeconomic and educational 
opportunities, reducing participants' susceptibility to violent 
extremist rhetoric and recruitment.

    Question 17. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 18. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 19. Do you or do any members of your immediate family have 
any financial interests in Morocco?

    Answer. No, neither myself or any member of my family have any 
financial interests in Morocco.

    Question 20. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I have long been an activist not only in our company, but 
in all our charitable involvements in advocating diversity and 
creativity to promote productivity and inclusion. My long experience 
and hiring practices gleaned from years of exposure to all manner of 
staffing and while building our business will, of course, be carried 
forward in working with and promoting, mentoring and supporting the 
Embassy staff no matter what their background. My ``team effort'' 
approach which has served me well in my private life and charitable 
venues will be carried forward in the Embassy.

    Question 21. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Understanding that I will ultimately set the tone and 
example, everyone under my purview from Day One will be expected to 
carry out this goal in creating this culture each and every moment--
with everyone they interact with and in everything they do. I will hold 
them and myself responsible for communicating and operating with such 
tenets at all times--with the utmost professionalism, sensitivity and 
self-confidence.

    Question 22. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Morocco 
specifically?

    Answer. In Morocco, as in other countries, corruption has the 
potential to hinder development, destabilize government, undermine 
democracy, and provide openings for dangerous groups like criminals, 
traffickers, and terrorists. As the State Department noted in its 2017 
Human Rights Report for Morocco, the perception of systemic and 
pervasive corruption undermines law enforcement and the effectiveness 
of the judicial system.

    Question 23. What is your assessment of corruption trends in 
Morocco and efforts to address and reduce it by that government?

    Answer. Moroccan law provides criminal penalties for official 
corruption, and the Government recently passed a law establishing a new 
institution with enhanced authorities to pursue anti-corruption 
efforts. However, as the State Department noted in its 2017 Human 
Rights Report for Morocco, the Government generally did not implement 
the law effectively. The Moroccan public continues to view corruption 
as an important problem and combatting corruption as a priority.

    Question 24. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Morocco?

    Answer. U.S. Government assistance supports the Government of 
Morocco's efforts to increase transparency and accountability. The U.S. 
Embassy engages actively with key government and civil society actors 
in the field of anti-corruption. For example, last September, the 
Embassy hosted a roundtable with key government officials and civil 
society leaders to discuss Morocco's fight against corruption and to 
encourage more collaboration. If confirmed, I will continue to engage 
the Government of Morocco on this important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                David T. Fischer by Senator Jeff Merkley

    Question 1. Mr. Fischer, during your confirmation hearing on August 
23 when discussing the litigation brought by Ms. Day, you indicated 
that there was ``no history, no discussion, not a hint of an allegation 
against me.'' However, in Ms. Day's complaint she asserted that she 
``informed Defendant Suburban through its agent Defendant David T. 
Fischer that she could not work under Defendant Darrell Dowdy, Manager 
of New Car Sales, because of the sexual harassment that she had been 
and was presently undergoing by this Defendant and Plaintiff had 
previously made this known to Defendant Suburban by reporting same to 
Defendant David T. Fischer on several prior occasions.'' Can you 
explain your understanding of these claims?

    Answer. A Motion for Summary Disposition was granted to my Company 
and me for the sexual harassment and discrimination charges, and all 
other charges except for the wrongful discharge counts. While I did 
have one or more discussions with Ms. Day regarding her working 
relationship with Mr. Dowdy prior to her filing suit, the discussions 
were not about sexual harassment. My recollection of this 30-year-old 
case is that Ms. Day did not like working with Mr. Dowdy, a boss-
subordinate issue that is not uncommon in the workplace.
    This suit was an unfortunate by-product of a downturn in business 
conditions that resulted in Ms. Day's position being eliminated. We had 
hired a business consultant to review our operations. One of the 
recommendations from the consultant was that due to the reduced 
dealership sales, the payroll costs of the Finance and Insurance (F&I) 
Department were excessive, and he recommended that we reduce the 
department from two persons to one. We chose to keep the more 
productive person and we offered Ms. Day a lesser position within the 
dealership. I was involved in this decision as the owner of the 
Company, which is most likely why I was named personally in this suit. 
Ms. Day refused the reassignment, claiming that she could not work for 
Mr. Dowdy and she quit. She later claimed in her suit that Mr. Dowdy 
had been subjecting her to sexual harassment.
    Ms. Day sued for wrongful discharge and a number of other charges, 
including sexual discrimination and sexual harassment. The charges were 
all determined by the Court to be without merit except for the count 
for wrongful discharge. As outlined in the Judge's Opinion and Order, 
there was a question of fact as to whether a comment made to the 
Plaintiff by the Company's General Manager, Robert Martin, modified the 
Company's ``at-will'' contract that had been signed by the Plaintiff on 
her employment application. Mr. Martin commented when transferring 
Plaintiff to the F&I position (that was later eliminated because of 
economic conditions) that ``as long as I did a good job, I had a job''. 
Accordingly, the Judge did not dismiss the wrongful discharge counts, 
as fact questions were raised.
    The wrongful discharge counts were quickly resolved after the 
Motion for Summary Disposition was granted for sexual harassment, 
sexual discrimination, intentional infliction of emotional distress and 
breach of good faith and fair dealing, and the case was dismissed with 
prejudice and without costs on March 17, 1989. While I personally have 
no recollection of the settlement in this case, we were able to locate 
a member of the Defendant legal team, whose best recollection in this 
30 year old case was that the settlement was in the range of twelve to 
eighteen months of compensation, which I estimate would have been in 
the range of $50,000 to $75,000.

    Question 2. Since the time of the case involving Ms. Day, have 
there been any other sexual harassment cases against your company or of 
which you have been named as a defendant? If there have been please 
list them and describe how your company responded and resolved each of 
them.

    Answer. There was a 1993 sexual harassment case against the Company 
that I was initially personally named as a defendant, and these charges 
against me personally were later dismissed. This case, Jaqui 
Grattadauria vs. Suburban Toyota Volvo, Inc., David Fischer, David 
Wagner, Roy Coons and William Burston, Oakland County Court Case No. 
93-465662-NZ, is disclosed in my committee questionnaire, under Part E, 
Question 4, entitled ``Civil Litigation''. This case was vigorously 
defended, and was ultimately settled by our insurance company.
    This case provided our Company with a reminder that all employees, 
including disgruntled employees who are parting employment with us, 
should be treated professionally and with respect. Additionally, as a 
general matter, the managers that I directly supervise have completed 
refreshers with their staff regarding our expectations surrounding 
appropriate workplace behavior.

    Question 3. As a result of the litigation by Ms. Day did you 
implement any new sexual harassment trainings or policies for your 
staff?

    Answer. Yes, during this period our Company instituted workplace 
training on harassment and discrimination to make sure that employees 
understood our expectations surrounding appropriate workplace behavior. 
I do not recall whether our training was specifically related to this 
lawsuit or whether it was a result of the overall cultural emphasis on 
the workplace behavior that was gaining momentum at that particular 
time. Over the years since this 1987 lawsuit, we have prepared employee 
handbooks (the failure to follow handbook policies by an employee can 
lead to termination), continued workplace training on harassment and 
discrimination of all kinds, instituted an ``open door'' policy 
providing employees a non-threatening avenue to discuss concerns with 
their managers or more senior leaders in our Company, and generally 
promote a positive collaborative working environment for our employees.
    Our Company has very strong policies for treating our employees 
professionally and with respect. Given the size and expansive location 
of our company, I am not involved in all employee matters, but I do 
continue to set and reinforce this culture with the managers who I 
directly supervise, and other employees. Over the 50 years that I have 
led our Company, we have grown from one location and under 100 
employees to over 50 locations and over 3,000 employees, including many 
long-term employees. This ability to grow our Company speaks strongly 
of the Company's reputation under my direction with both its employees 
and our customers.

    Question 4. Could you please describe the circumstances surrounding 
your decision to recuse yourself as a member of the Judicial Tenure 
Commission in the case of Judge Gorcyca. Why did you choose to reverse 
your recusals when the underlying issue, in this case a personal 
relationship with the Judge, had not changed?

    Answer. I recused myself from the Judge Gorcyca matter, in an 
abundance of caution, as I personally know Judge Gorcyca's husband, 
Dave Gorcyca. My recusal was made prior to the details of the case 
being presented to the JTC. However, I was made aware of many of the 
details of this particular case from publications in local media, which 
appeared to be influenced by actions of the Executive Director and 
General Counsel of the JTC, which I believed to be inappropriate. Upon 
further investigation of the standards for recusal with attorneys and 
judicial colleagues on the JTC, it became clear that my recusal on 
these specific matters was not ethically required or recommended. I 
therefore revoked my recusal.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Hon. Earl Robert Miller by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my three and half years as U.S. Ambassador in 
Botswana I was a vocal high-profile advocate of democracy and human 
rights. I raised issues of concern directly with Botswana President 
Masisi and former President Khama on fundamental U.S. principles from 
transparent governance to gay rights as human rights and the importance 
of protecting marginalized communities from discrimination and violence 
to religious and press freedom. Speaking so directly and publicly came 
at a cost. My visibility on these issues earned praise from the NGO 
community, but often strong criticism from senior government officials. 
One of my proudest accomplishments as Ambassador is we could have these 
disagreements while still maintaining and advancing our nations' 
partnership. While Khama and I had a close personal relationship, I was 
officially convoked twice at the former President's behest over my 
prominent advocacy for Botswana to adhere to international norms and 
laws on child labor and trafficking in persons. In 2015, I was 
officially summoned by Khama over Botswana's downgrade to Tier Two 
Watchlist on our Trafficking in Persons (TIP) Report. I used the 
opportunity to explain how the Government of Botswana could more 
effectively fight human trafficking. My U.S. Embassy team and I worked 
closely with government officials and NGOs at all levels across the 
country to help Botswana achieve Tier Two status the next year, a well-
deserved recognition of a country now cited as an example of how to 
address TIP in Africa. Candid one-on-one conversations with Presidents 
Masisi and Khama gained Botswana's support for important U.S. 
resolutions at the United Nations on Syria, North Korea, Chinese 
aggression in the South China Sea, Venezuela, all at odds with African 
Union consensus and the majority of Botswana's neighbors in Southern 
Africa.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Bangladesh? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. There are a number of pressing challenges to democracy in 
Bangladesh, which including the following:

  <diamond> Extrajudicial killings, torture, arbitrary or unlawful 
        detentions and forced disappearances by government security 
        forces;
  <diamond> Restrictions on civil liberties, including freedom of 
        speech, press, and the activities of nongovernmental 
        organizations;
  <diamond> Intimidation and harassment of opposition political parties 
        and arbitrary restrictions on their ability to meet, assemble, 
        peacefully protest and participate in the political process;
  <diamond> Wide-spread corruption;
  <diamond> Violence and discrimination based on gender, religious 
        affiliation, caste, tribe (including indigenous persons), and 
        sexual orientation and gender identity.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Bangladesh? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The upcoming national elections provide an opportunity to 
engage strongly and consistently on the democratic process and 
institutions in Bangladesh. If confirmed, I will seek to continue and 
amplify our messaging on the need for a free, fair, credible and non-
violent elections process that reflects the will of the Bangladeshi 
people. I will also seek opportunities to continue programming to 
counter closing democratic space, support civil society, and encourage 
the Government to reverse or amend laws that curtail freedom of 
expression and association.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Programming and engagement work hand-in-hand to promote 
democratic values and fundamental human rights. If confirmed, I will 
continue to work with the U.S. Government interagency to support 
democracy and governance, including ongoing programming to support 
labor rights and grassroots efforts to make political parties more 
responsive to their constituents.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Bangladesh? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. A vibrant civil society, where human rights groups and 
other nongovernmental organizations are free to express their views 
without intimidation or fear of reprisal, is essential for all 
democracies. The closing of the democratic space in Bangladesh and 
increase in government restrictions on NGOs in recent years are serious 
concerns. If confirmed, I will continue to meet with such organizations 
and encourage the Government of Bangladesh to reverse, amend, or 
reconsider current or proposed laws that limit the ability of civil 
society to operate.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meeting with leaders from various 
parties and backgrounds and advocating for expanding democratic space. 
This engagement has been a key priority for our Embassy in Dhaka, 
particularly with the upcoming election in Bangladesh. If confirmed, I 
would continue to call on the Government of Bangladesh to fulfill its 
commitment to hold free, fair, participatory, and credible elections 
that reflect the will of the Bangladeshi people. I would also continue 
USG programming and advocacy to re-open the democratic space in 
Bangladesh for the political opposition and civil society, so that all, 
including women, minorities and youth, can exercise their freedoms of 
expression and assembly.

    Question 7. Will you and your embassy team actively engage with 
Bangladesh on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Bangladesh?

    Answer. Freedom of expression is vital for a healthy democracy, 
particularly the ability for media, civil society organizations, and 
members of opposition political parties to express their views and 
advocate for policy change. This is especially true in advance of 
elections. In Bangladesh, both print and online media are active and 
express a variety of views, including those critical of the government. 
However, there are concerning and credible reports about violence, 
harassment, and intimidation of journalists that limit freedom of the 
press. If confirmed, I look forward to meeting regularly with the press 
and to continue advocacy and programming to support the press' ability 
to become fully free and independent.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will continue to engage with civil society 
and government counterparts to promote a free and independent media 
that accurately reports on events and is careful about repeating 
reports from other organizations it has not been able to independently 
confirm as true.

    Question 9. Will you and your embassy teams actively engage with 
Bangladesh on the right of labor groups to organize, including for 
independent trade unions?

    Answer. The United States is committed to helping Bangladesh 
protect workers' rights and safety. If confirmed, I will support U.S. 
Government programming and advocacy for freedom of association for 
workers that meets international standards and encourage further 
improvements to occupational safety and health.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Bangladesh, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Bangladesh? What specifically will you commit to do to help 
LGBTI people in Bangladesh?

    Answer. Defending the human rights and dignity of all people in 
Bangladesh is critical, no matter their sexual orientation or gender 
identity. The LGBTI population in Bangladesh experiences discrimination 
publicly and privately. If confirmed, I look forward to continuing to 
support human rights programming across various vulnerable populations, 
and to continue to seek justice for the murder of our friend and U.S. 
Embassy Dhaka colleague, Xulhaz Mannan, for his human rights work in 
Bangladesh.

    Question 11. Has the international donor support for the refugee 
crisis in Bangladesh been sufficient to meet the need?

    Answer. In spite of generous support from multiple international 
donors, funding has not been sufficient to date. Overall, only about a 
third of the $951 million U.N. Joint Response Plan, covering March to 
December 2018, has been funded. U.S. contributions represent nearly 22 
percent of all contributions toward the appeal. The USG is the top 
donor to this crisis and continues to advocate for other donors to 
contribute robustly. The International Organization for Migration (IOM) 
reports it is currently only 24 percent funded against its $182.1 
million request, which impacts delivery of services.

    Question 12. What more, in your view, needs to be done to leverage 
international humanitarian support?

    Answer. While a political solution remains crucial, the United 
States is also focused on meeting the humanitarian needs of refugees 
and host communities in Bangladesh. The United States is the leading 
donor to the Rakhine State crisis. If confirmed, I will continue to 
leverage U.S. funding measures to urge others, including non-
traditional donors, to contribute to the response.

    Question 13. Is the U.S. doing enough and, if not, what more could 
it be doing?

    Answer. The United States has provided nearly $300 million in 
humanitarian assistance to help displaced people in and from Burma and 
affected communities in the region since the start of FY 2017. Of this 
total assistance, more than $190 million has been provided since August 
2017 for the refugee relief effort in Bangladesh. We need to continue 
to focus on the immediate needs of these vulnerable populations--basic 
health and safety--while also engaging in medium- and long-term 
planning, including education and livelihoods, to improve living 
conditions and reduce vulnerabilities. At the same time, we must always 
make clear this assistance in no way signals the United States has 
given up on efforts to create the conditions in Rakhine State that will 
allow the Rohingya who voluntarily decide to return to do so in 
security and with dignity.

    Question 14. Are you aware of Bangladeshi Government plans to 
transfer Rohingya refugees from Cox's Bazar to the island of Bhasan 
Char? Do you think the U.S. Government should support or oppose this 
transfer? What pre-conditions do you think should be required before 
such a transfer could take place?

    Answer. Yes, I am aware of the proposed relocation plan to Bhasan 
Char Island. If confirmed, I will continue to urge the Government to 
allow the U.N. to conduct a technical assessment to determine the 
feasibility and desirability of relocating refugees there. This must 
include an assessment of the safety, habitability, and protection 
implications of transporting, housing and providing food and other 
services to 100,000 refugees, including during natural disasters. Any 
plan to relocate refugees in Bangladesh or back to Burma must be fully 
voluntary, safe, and dignified. Any relocation of refugees to Bhasan 
Char Island would need to allow for freedom of movement to where the 
rest of the Rohingya are located in Cox's Bazar.

    Question 15. Do you think that the assistance directed to 
developing Cox's Bazar, which is aimed at improving infrastructure and 
livelihoods for both the local host community and the refugees, would 
be preferable to relocating refugees to Bhasan Char?

    Answer. Even if Bhasan Char proves to be suitable for relocation of 
refugees, it will not eliminate the need for additional usable land in 
Cox's Bazar to help decongest the existing over-crowded camps and 
mitigate current risk factors, including radicalization, criminality, 
instability, disease, and sexual violence. Any planned relocation, or 
improvement to existing infrastructure, would carry the same 
requirements--that the new sites meet suitability standards for safety, 
habitability, and security needs, and any relocation plan be fully 
voluntary, safe, and dignified, and allow for freedom of movement. 
Improvements to infrastructure and an increase in livelihood 
opportunities in local host communities could mitigate tensions between 
the pre-existing population and the newly arrived refugees, and thus 
contribute to an overall improvement in the situation.

    Question 16. There is currently a crackdown on freedom of 
expression in Bangladesh; social media is monitored and those that 
criticize the prime minister, her family members, or her Government are 
prosecuted under the draconian Information and Communications Act (ICT 
Act). After the recent student protests, photographer Shahidul Alam, 
activist Faria Mahjabin, and numerous students and teachers have been 
arrested under the ICT Act. What role do you believe the U.S. should 
play in responding to this situation?

    Answer. We are deeply concerned about reported arrests, attacks and 
efforts to intimidate journalists in Bangladesh. A free press is 
fundamental to democracy, and we will continue to engage with the 
Government of Bangladesh on the importance of ensuring journalists are 
protected from violence and intimidation. As I noted in my testimony, 
media, civil society, members of opposition groups, and peaceful 
protesters must be able to express their views and advocate for change 
without fear of retribution. Ambassador Bernicat has been a superb 
champion of all voices in the democratic process and, if confirmed, I 
pledge to follow her admirable example.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Hon. Earl Robert Miller by Senator Benjamin L. Cardin

    Question 1. Has the international donor support for the refugee 
crisis in Bangladesh been sufficient to meet the need?

    Answer. In spite of generous support from multiple international 
donors, funding has not been sufficient to date. Overall, only about a 
third of the $951 million U.N. Joint Response Plan, covering March to 
December 2018, has been funded. U.S. contributions represent nearly 22 
percent of all contributions toward the appeal. The USG is the top 
donor to this crisis and continues to advocate for other donors to 
contribute robustly. The International Organization for Migration (IOM) 
reports it is currently only 24 percent funded against its $182.1 
million request, which impacts delivery of services.

    Question 2. What more, in your view, needs to be done to leverage 
international humanitarian support?

    Answer. While a political solution remains crucial, the United 
States is also focused on meeting the humanitarian needs of refugees 
and host communities in Bangladesh. The United States is the leading 
donor to the Rakhine State crisis. If confirmed, I will continue to 
leverage U.S. funding measures to urge others, including non-
traditional donors, to contribute to the response.

    Question 3. Is the U.S. doing enough and, if not, what more could 
we be doing?

    Answer. The United States has provided nearly $300 million in 
humanitarian assistance to help displaced people in and from Burma and 
affected communities in the region since the start of FY 2017. Of this 
total assistance, more than $190 million has been provided since August 
2017 for the refugee relief effort in Bangladesh. We need to continue 
to focus on the immediate needs of these vulnerable populations--basic 
health and safety--while also engaging in medium- and long-term 
planning, including education and livelihoods, to improve living 
conditions and reduce vulnerabilities. At the same time, we must always 
make clear this assistance in no way signals the United States has 
given up on efforts to create the conditions in Rakhine State that will 
allow the Rohingya who voluntarily decide to return to do so in 
security and with dignity.

    Question 4. Are you aware of Bangladeshi Government plans to 
transfer Rohingya refugees from Cox's Bazar to the island of Bhasan 
Char? Do you think the U.S. Government should support or oppose this 
transfer? What pre-conditions do you think should be required before 
such a transfer could take place?

    Answer. Yes, I am aware of the proposed relocation plan to Bhasan 
Char Island. If confirmed, I will continue to urge the Government to 
allow the U.N. to conduct a technical assessment to determine the 
feasibility and desirability of relocating refugees there. This must 
include an assessment of the safety, habitability, and protection 
implications of transporting, housing and providing food and other 
services to 100,000 refugees, including during natural disasters. Any 
plan to relocate refugees in Bangladesh or back to Burma must be fully 
voluntary, safe, and dignified. Any relocation of refugees to Bhasan 
Char Island would need to allow for freedom of movement to where the 
rest of the Rohingya are located in Cox's Bazar.

    Question 5. Do you have a view on the viability of other relocation 
sites, such as the six locations in Ukiya subdistrict near to the 
existing camp? Do you think that assistance directed to developing the 
Cox's Bazar district (which includes Ukiya subdistrict) aimed at 
improving infrastructure and livelihoods for both the local host 
community and the refugees would be preferable to relocating refugees 
to Bhasan Char?

    Answer. Even if Bhasan Char proves to be suitable for relocation of 
refugees, it will not eliminate the need for additional usable land in 
Cox's Bazar to help decongest the existing over-crowded camps and 
mitigate current risk factors, including radicalization, criminality, 
instability, disease, and sexual violence. Any planned relocation or 
improvement to existing infrastructure would carry the same 
requirements--that the new sites meet suitability standards for safety, 
habitability, and security needs, and any relocation plan be fully 
voluntary, safe, and dignified and allow for freedom of movement. 
Improvements to infrastructure and an increase in livelihood 
opportunities in local host communities could mitigate tensions between 
the pre-existing population and the newly arrived refugees, and thus 
contribute to an overall improvement in the situation.

    Question 6. The Bangladesh Government has made clear that it hopes 
and expects the Rohingya refugees to return to Myanmar in the near 
future. How realistic do you think this is? What conditions do you 
think would need to be place for safe and dignified refugee 
repatriation to occur?

    Answer. While the Government of Bangladesh has pushed for the 
Rohingya to be able to return to Burma as soon as possible, it has 
fully accepted the international standard that all returns be 
voluntary, safe, and dignified. It is Burma's responsibility to create 
the conditions conducive for return, including respecting the basic 
rights and freedoms of all of its diverse people. If confirmed, I will 
continue to work with the Governments of Bangladesh and Burma through 
our Embassy in Rangoon, as well as with our international partners, to 
most effectively achieve these conditions. This would include 
implementation of the recommendations of the Advisory Commission on 
Rakhine State (also known as the Annan Commission), which the 
Government of Burma has publically endorsed, including those related to 
access to citizenship and freedom of movement.

    Question 7. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my three and half years as U.S. Ambassador in 
Botswana I was a vocal high-profile advocate of democracy and human 
rights. I raised issues of concern directly with Botswana President 
Masisi and former President Khama on fundamental U.S. principles from 
transparent governance to gay rights as human rights, and the 
importance of protecting marginalized communities from discrimination 
and violence to religious and press freedom. Speaking so directly and 
publicly came at a cost. My visibility on these issues earned praise 
from the NGO community but often strong criticism from senior 
government officials. One of my proudest accomplishments as Ambassador 
is we could have these disagreements while still maintaining and 
advancing our nations' partnership. While Khama and I had a close 
relationship, I was officially convoked twice at the former President's 
behest over my prominent advocacy for Botswana to adhere to 
international norms and laws on child labor and trafficking in persons. 
In 2015, I was officially summoned by Khama over Botswana's downgrade 
to Tier Two Watchlist on our Trafficking in Persons (TIP) Report. I 
used the opportunity to explain how the Government of Botswana could 
more effectively fight human trafficking. My U.S. Embassy team and I 
worked closely with government officials and NGOs at all levels across 
the country to help Botswana earn an upgrade to Tier Two, a well-
deserved recognition of a country now cited as an example of how to 
address TIP in Africa. Candid one-on-one conversations with Presidents 
Masisi and Khama gained Botswana's support for important U.S. 
resolutions at the United Nations on Syria, North Korea, Chinese 
aggression in the South China Sea, and Venezuela, all at odds with 
African Union consensus and the majority of Botswana's neighbors in 
Southern Africa.

    Question 8. What are the most pressing human rights issues in 
Bangladesh? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Bangladesh? What do 
you hope to accomplish through these actions?

    Answer. There are a number of pressing challenges to democracy in 
Bangladesh, including the following:

  <diamond> Extrajudicial killings, torture, arbitrary or unlawful 
        detentions and forced disappearances by government security 
        forces;
  <diamond> Restrictions on civil liberties, including freedom of 
        speech, press, and the activities of nongovernmental 
        organizations;
  <diamond> Intimidation and harassment of opposition political parties 
        and arbitrary restrictions on their ability to meet, assemble, 
        peacefully protest, and participate in the political process;
  <diamond> Wide-spread corruption;
  <diamond> Violence and discrimination based on gender, religious 
        affiliation, caste, tribe (including indigenous persons), and 
        sexual orientation and gender identity.

    The upcoming national elections provide an opportunity to engage 
strongly and consistently on the democratic process and institutions in 
Bangladesh. If confirmed, I will seek to continue and amplify our 
messaging on the need for a free, fair, credible and non-violent 
elections process that reflects the will of the Bangladeshi people. I 
will also seek opportunities to continue programming to counter closing 
democratic space, support civil society, and encourage the Government 
to reverse or amend laws that curtail freedom of expression and 
association.

    Question 9. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Bangladesh in 
advancing human rights, civil society and democracy in general?

    Answer. The biggest obstacle to addressing these human rights 
issues is the increasingly limited democratic space in Bangladesh which 
has reduced the ability and willingness of members of civil society and 
the media to speak out and actively advocate for change. Our challenge 
is to make the case it is in Bangladesh's own national interest--and 
key to its further economic development--to have a vibrant civil 
society and press that can contribute to finding and implementing 
solutions to societal problems, including human rights. Bangladesh has 
rightly earned worldwide acclaim for its humane and generous response 
to the Rohingya refugee crisis that literally saved thousands of lives. 
It would be unfortunate if Bangladesh's well-deserved reputation for 
inclusion and compassion is tarnished by a lack of respect for the 
human rights of its own citizens. The upcoming national elections are 
an important test of the Government's adherence to the democratic 
values our two countries share. We look forward to Bangladesh living up 
to its commitment to holding free, fair, participatory, and credible 
elections that reflect the will of the Bangladeshi people. As I noted 
in my testimony, Ambassador Bernicat has been a superb champion of all 
voices in the democratic process and, if confirmed, I pledge to follow 
her admirable example.

    Question 10. Dozens of people, including members or relatives of 
the political opposition, have been forcibly disappeared in Bangladesh. 
Officials, including both the prime minister and her son (who is a U.S. 
national) have denied these violations. Are you aware of these 
incidents? What role do you believe the U.S. should play in responding 
them?

    Answer. Yes, I am aware of these incidents. We have consistently 
said we are concerned about reports of extrajudicial killings, deaths 
in custody, forced disappearances and unlawful detentions. We continue 
to urge government leaders to ensure these allegations of human rights 
violations and abuses by government personnel are fully investigated 
and all those responsible held to account. We take allegations of gross 
violations of human rights very seriously. We do not provide assistance 
to any security force unit when we have credible information that unit 
committed a gross violation of human rights, until and unless the 
Government takes effective steps to bring those responsible to justice.

    Question 11. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Bangladesh? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. A vibrant civil society, where human rights groups and 
other nongovernmental organizations are free to express their views 
without intimidation or fear of reprisal, is essential for all 
democracies. The closing of the democratic space in Bangladesh and 
increase in government restrictions on NGOs in recent years are serious 
concerns. If confirmed, I would continue to meet with such 
organizations and encourage the Government of Bangladesh to reverse, 
amend, or reconsider current or proposed laws that limit the ability of 
civil society to operate. I would also continue to stress to the 
Government of Bangladesh that its response and investigation of any 
crime must respect international human rights standards. The Department 
of State continues to closely monitor reports of human rights 
violations and abuses and reports those concerns in the annual Human 
Rights Report including allegations of security force abuses. If 
confirmed, I would continue to use this annual report and other 
engagements to press for improvements in human rights in Bangladesh. 
Additionally, I will insist on and ensure full and appropriate 
application of Leahy Law requirements to ensure our security assistance 
and cooperation is consistent with human rights priorities. This 
includes encouraging and promoting military-military engagements and 
participation in U.S. military training programs, including through the 
International Military Education and Training (IMET) program, that 
expose Bangladeshi security forces to principles of democracy, human 
rights, and civilian-military cooperation.

    Question 12. Will you and your embassy team actively engage with 
Bangladesh to address cases of key political prisoners or persons 
otherwise unjustly targeted by Bangladesh?

    Answer. Yes, if confirmed, my Embassy team and I will actively 
engage with Bangladesh to address cases of key political prisoners or 
persons otherwise unjustly targeted.

    Question 13. Will you engage with Bangladesh on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. The upcoming national elections provide an opportunity to 
engage strongly and consistently on the democratic process and 
institutions in Bangladesh. If confirmed, I look forward to engaging 
with Bangladesh on matters of human rights, civil rights, and 
governance as part of our robust bilateral exchanges.

    Question 14. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns I may have through 
appropriate channels.

    Question 15. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns I may have through 
appropriate channels.

    Question 16. Do you or do any members of your immediate family have 
any financial interests in Bangladesh?

    Answer. No.

    Question 17. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I would continue, as I have done in Botswana 
as Ambassador, to regularly discuss with U.S. mission employees the 
importance of our talented workforce reflecting and championing all of 
America's strengths and diversity. I would hold bi-monthly professional 
development meetings, as I do in Botswana, where we discuss, among 
other issues, inclusion, diversity, and equal opportunities in the 
modern Foreign Service. I would also discuss with educational exchange 
students, interns, and other visitors how the U.S. Foreign Service is 
changing to look more like the nation we serve. I would ensure we cast 
a wide net when recruiting officers to serve in Bangladesh and saw 
these efforts pay off in Botswana when we welcomed last month our 
embassy's first ever African-American Deputy Chief of Mission. As the 
father of two sons whose mother is from El Salvador, I have often 
spoken of the need to have more Hispanic Foreign Service Officers, 
currently comprising only about 5 percent of Foreign Service 
Generalists. If confirmed, I would continue to actively support and 
participate in the State Department's celebrations of Asian-American 
and Pacific Islander Heritage Month, Hispanic Heritage Month, Women's 
History Month, Black History Month, Native American Heritage Month and 
Lesbian, Gay, Bisexual, and Transgender Pride Month, among others.

    Question 18. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, as Ambassador I would set the example, 
personally and professionally, of supporting an inclusive, fair, and 
welcoming work environment. I would ensure all supervisors and 
managers, myself included, attend all mandatory EEO/Diversity Awareness 
training. I would insist all employees fully follow U.S. Government EEO 
and diversity guidelines and any who did not would be subject to 
disciplinary measures to include removal from employment and post.

    Question 19. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Bangladesh 
specifically? What is your assessment of corruption trends in 
Bangladesh and efforts to address and reduce it by that government? If 
confirmed, what steps will you take to strengthen good governance and 
anticorruption programming in Bangladesh?

    Answer. Corruption is extremely damaging to the governance and 
overall functioning of every country, and Bangladesh is no exception. 
Transparency International's 2017 Corruption Perception Index ranks 
Bangladesh 143rd out of 180 countries. The Government of Bangladesh has 
taken some initial steps to address issues of corruption but there is 
much more to be done. If confirmed, I would pursue additional progress 
on anticorruption measures, working both with the Government and civil 
society, making the case Bangladesh's continued economic development 
depends on tackling this issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Daniel N. Rosenblum by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been a 
consistent element throughout my professional career. My very first job 
after college was as a research assistant to a Member of the British 
House of Lords, who was Chairman of the Parliamentary Human Rights 
Group. I supported his work on behalf of political prisoners in East 
Timor, Pakistan, and China, and did an analysis of the electoral system 
of Guyana, later published by Americas Watch. This and similar efforts 
eventually led to freer elections and a change in political leadership 
in that country.
    During my four years with Senator Carl Levin, my portfolio included 
human rights and democracy promotion. I initiated and collaborated on 
numerous legislative efforts, such as advocacy on behalf of political 
prisoners in the Soviet Union and persecuted members of ethnic minority 
groups in Eastern Europe, and renaming the street in front of the U.S. 
Holocaust Museum to honor Raoul Wallenberg, who saved thousands of Jews 
in Hungary during World War Two. I also drafted legislation the Senator 
sponsored to permit the Overseas Private Investment Corporation to 
operate in Poland, an effort to promote the nascent private sector at 
the very beginning of Poland's democratic transition.
    During the six years I worked for the Free Trade Union Institute 
(now part of the Solidarity Center), I managed grants from the National 
Endowment for Democracy and USAID aimed at supporting emerging 
independent trade unions throughout the former Soviet republics. We 
provided training and equipment that helped these groups to organize on 
behalf of workers in the coal, garment, and metallurgical industries, 
as well as among teachers, air traffic controllers and other public 
sector employees. As a result of our programs, workers throughout the 
region for the first time in 80 years were actually represented by 
organizations that advocated for fair compensation and benefits, 
workplace health and safety, and other labor rights.
    For 17 years at the Department of State, I coordinated U.S. foreign 
aid throughout the former Soviet Union and Eastern Europe, and in that 
capacity, ensured that sufficient resources and the right kinds of 
programs were devoted to the promotion of human rights and democracy. 
There are literally hundreds of examples of this, but I would single 
out the work I coordinated to build democratic institutions 
(independent media, civil society, rule of law, a vibrant private 
sector, free and fair elections) in countries like Ukraine, Georgia, 
Kosovo, and the Kyrgyz Republic. While progress in these and other 
countries in the region has been uneven and sometimes characterized by 
one step back for every two forward, we have also seen examples of real 
progress toward more open and accountable governance, freer press, and 
more active and effective civil society organizations.
    Finally, over the past four years as a Deputy Assistant Secretary 
for South and Central Asia, I have had numerous opportunities to raise 
concerns about human rights and democracy with Government officials. I 
am particularly proud of the role I played in highlighting concerns 
about arbitrarily or unlawfully imprisoned political activists, 
journalists, and human rights defenders. Not only did I raise these 
cases directly with senior officials, but in a few instances had the 
difficult but important experience of meeting prisoners' families to 
hear their stories and express sympathy for the plight of their loved 
ones. Although many of these prisoners have not been released to date, 
I am pleased to say that in Uzbekistan every one of the individuals 
whose cases I raised between 2014 and 2016 has now been released from 
prison.

    Question 2. What issues are the most pressing challenges you see to 
democracy or democratic development in Uzbekistan? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Uzbekistan's reform agenda is primarily driven from the top 
and power remains concentrated in the hands of the President. One of 
the first challenges is institutionalization of the reform, including 
passage and implementation of laws in accordance with international 
standards that protect the rights of the people. Second, Uzbekistan's 
political system does not include genuine political competition and 
accountability, and political activity is limited at the grassroots 
level. It will take time to break away from the past to cultivate and 
nurture public participation in democratic governance. President 
Mirziyoyev has set Uzbekistan on a positive trajectory with respect to 
human rights. While highlighting our respect for Uzbekistan's 
sovereignty, independence, and territorial integrity, the United States 
must continue to encourage Uzbekistan to remain on the path of 
political and economic reform, focusing on guaranteeing the human 
rights and fundamental freedoms of all, strengthening the independence 
of the country's judiciary and parliament and institutionalization of 
reforms for the long term.

    Question 3. What specific steps will you take--if confirmed--to 
support democracy in Uzbekistan? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. Since assuming power in 2016, President Mirziyoyev has 
taken important steps towards improving the country's human rights 
situation including eliminating systemic child labor, reducing adult 
forced labor, strengthening the rule of law--for example by banning 
evidence obtained through torture--as well as simplifying registration 
procedures for civil society and religious groups. There is still much 
work to be done. If confirmed, I would continue to urge Uzbekistan to 
continue along the path of reform, focus on guaranteeing the human 
rights and fundamental freedoms of all, strengthening the independence 
of the judiciary and the role of parliament as guarantors of these 
rights and institutionalize the positive changes for the long-term 
benefit of the country and its people. I will utilize the full breadth 
of assistance resources and Public Diplomacy programing to help address 
these challenges. We will also continue to provide support to 
institutions and organizations helping to promote these positive 
changes. We will not shy away from raising human rights abuses and 
violations where they occur. I realize that building a vibrant civil 
society is a long-term process, but I am encouraged by many positive 
developments under the administration of President Mirziyoyev and if 
confirmed, will ensure the United States remains a leading partner in 
this endeavor.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, under my leadership the Embassy will continue 
to use the full range of available assistance resources to support 
broad democracy and governance reforms in Uzbekistan. If confirmed, I 
will continue support for existing programs and in future budget years, 
will prioritize such programs, which include the Embassy Democracy 
Commission Small Grants program, USAID's Democracy, Human Rights, and 
Governance programs, and State Department-funded assistance programs as 
well as supporting public diplomacy tools such as the speakers' program 
and the International Visitor Leadership Program. Justice sector reform 
and anticorruption programming are particularly important because of 
their potential impact on all aspects of Uzbekistan society.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Uzbekistan? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, I am fully committed to meeting with members of civil 
society and other nongovernmental organizations. I firmly believe an 
independent and vibrant civil society is central to Uzbekistan's 
development and reform priorities. The Department of State continues to 
closely monitor reports of human rights violations and abuses, 
regularly communicates our concerns to the Government of Uzbekistan, 
and reports those issues in the annual Human Rights Report. If 
confirmed, I will continue to urge Uzbekistan to deepen its reforms 
stemming from President Mirziyoyev's May 4, 2018 decree enhancing the 
role of civil society in the country's reform process. As we monitor 
the new policies, we will continue to encourage the Government to 
ensure that requirements for NGOs facilitate freedom of association and 
bring Uzbekistan's policies closer in line with international best 
practices.

    Question 6. If confirmed, do you commit to meet with 
democratically-oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes I am committed to meeting with democratically-oriented 
political opposition figures and parties. In my previous role as the 
Deputy Assistant Secretary for Central Asia, we took every opportunity 
both in Uzbekistan and in the other four Central Asian countries to 
meet with these groups wherever and whenever possible. I welcome the 
emergence of a democratic Uzbekistan and will use the Embassy Democracy 
Commission grants and other programmatic tools at my disposal to 
advance this goal. If confirmed, I will continue to advocate for these 
groups and for lesser represented groups, such as women and youth, to 
promote greater inclusivity in the political system.

    Question 7. Will you and your embassy team actively engage with 
Uzbekistan on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Uzbekistan?

    Answer. The Mirziyoyev administration has released more than 40 
prisoners of conscience, and for the first time in more than two 
decades, the committee for the Protection of Journalists has declared 
Uzbekistan's prisons free of journalists. In another sign of the 
changing times, Uzbekistan has also recently given official 
accreditation to the Voice of America which broadcasts in the Uzbek 
language. If confirmed, my embassy team and I will continue to actively 
engage with Uzbekistan to address emerging cases of prisoners of 
conscience and encourage greater freedom for journalists to operate. I 
also commit to regularly meeting with local press in Uzbekistan.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will use the full breadth of the tools 
provided through our Office of Press and Public Diplomacy, USAID, 
Global Engagement Center, and interagency counterparts to partner with 
civil society organizations and the Uzbek Government to counter the 
impact of disinformation and malign propaganda disseminated by foreign 
state or non-state actors in Uzbekistan. The U.S. Embassy in Tashkent 
will play a key role in a multi-pronged regional effort to 
counterbalance the heavy flow of anti-American disinformation across 
the region. This programming will focus on activities that counter the 
objectives of these false narratives and pressures by engendering 
strong positive views of America, especially among youth, who are the 
future leaders of Central Asia. The programming will engage civil 
society, media outlets, and the Government of Uzbekistan in efforts to 
reduce susceptibility to such malign propaganda through expansion of 
our people-to-people programs, local media training initiatives, and 
efforts to promote media literacy among youth to ensure thoughtful 
media consumption.

    Question 9. Will you and your embassy teams actively engage with 
Uzbekistan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will engage the Government of Uzbekistan on 
the rights of workers to form labor unions and independent trade 
unions. Uzbekistan's economic growth will require improved labor 
conditions and assuring that protections for workers are consistently 
implemented. If confirmed, my team and I will energetically engage the 
Government of Uzbekistan, workers, employers, and labor activists to 
promote internationally recognized worker rights, including supporting 
workers' ability to form and join independent trade unions of their 
choice. We will also work with Uzbek partners interested in further 
diversifying the economy into sectors that yield greater benefits for 
the average worker.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Uzbekistan, no 
matter their sexual orientation or gender identity? What challenges do 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Uzbekistan? What specifically will you commit to do to help LGBTI 
people in Uzbekistan?

    Answer. If confirmed, I will commit to defend the human rights and 
dignity of all people in Uzbekistan, regardless of their sexual 
orientation or gender identity. According to the State Department's 
2017 Human Rights Report, members of the LGBTI community in Uzbekistan 
are subject to laws criminalizing same-sex sexual conduct. As the 
Secretary stated on the International Day against Homophobia, 
Transphobia and Biphobia, ``the United States stands with people around 
the world in affirming the dignity and equality of all people 
regardless of sexual orientation, gender identity or expression, or sex 
characteristics. Human rights are universal, and LGBTI people are 
entitled to the same respect, freedoms, and protections as everyone 
else.'' As the Secretary committed, we will continue to use a range of 
public and private actions to counter violence and severe 
discrimination against LGBTI persons across the world including through 
bilateral and multilateral channels, by offering emergency assistance 
to LGBTI persons and organizations at risk, and by imposing visa 
restrictions and economic sanctions, as appropriate, on those involved 
in violations or abuses of their human rights.

    Question 11. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Uzbekistan? Will 
you commit to meet with representatives of a diverse swath of religious 
groups and communities and to advocate for their ability to register 
and worship peacefully in the country?

    Answer. If confirmed, I will continue to press the Government of 
Uzbekistan, including at the highest levels, to fully meet its 
international obligations to uphold every individual's right to freedom 
of religion or belief. To be effective, I believe it is essential to 
meet with an array of religious congregants from all faiths to 
understand the day-to-day challenges they face in practicing their 
religion. Our goal will be to ensure that there is religious freedom 
for all in Uzbekistan.

    Question 12. How will you seek to boost resilience to Russian 
Government meddling within Uzbek institutions and civil society? What 
types of U.S. assistance do you see as most critical in this regard? 
How will you address corruption or other illicit dealings by Uzbek 
political actors that risk enabling malign Kremlin influence in the 
country?

    Answer. Russia has a long-standing historical relationship with 
Central Asia, important cultural and military ties, and is an important 
trade partner for the region. For Uzbekistan, Russia hosts over two 
million ethnic Uzbek workers and is the country's second largest 
trading partner. The United States is aware of Russia's role in the 
region and respects Uzbekistan's sovereign right to decide what kind of 
relationship it wants to have with Russia. At the same time, the 
cornerstone of our policy in the region is to support each country's 
sovereignty, independence and territorial integrity. If confirmed, I 
will continue to advocate for an Uzbekistan free of foreign 
interference and will utilize U.S. Government funding and programs to 
boost Uzbekistan's resilience to such outside pressure. In terms of 
addressing corruption and other illicit dealings, if confirmed, I will 
support existing U.S. funded good governance and anticorruption 
assistance programs and will prioritize such programs in future budget 
years. I will signal U.S. Embassy support for such programs and their 
objectives at every appropriate opportunity, including in meetings with 
Government of Uzbekistan officials, and by participation in the 
programs' public events. I will also use public diplomacy tools such as 
speakers' programs and the International Visitor Leadership Program 
(IVLP) to support these objectives.

    Question 13. How specifically will you engage, if confirmed, to 
support economic integration between Uzbekistan and other countries in 
the region? What further opportunities do you see to engage Uzbekistan 
as a partner in supporting peace and reconciliation in Afghanistan?

    Answer. If confirmed, I will continue to support the C5+1 platform, 
which brings together the five countries of Central Asia along with the 
U.S. to support to support intraregional economic, environment, and 
security cooperation. Under C5+1, the U.S. is supporting several 
projects aimed at supporting economic integration within Central Asia. 
These include the C5+1 Central Asia Business Competitiveness project 
that is facilitating the private sector development of the Central 
Asian horticulture sector, the C5+1 Transport Corridor Development 
Project to increase the competitiveness of Central Asian economies by 
improving their transport and logistics sectors, and the C5+1 Power the 
Future project, supporting the transition to low emission and advanced 
energy solutions. I will also continue to support regional integration 
projects such as CASA-1000, a project designed to export excess summer 
electricity from the Kyrgyz Republic and Tajikistan to Afghanistan and 
Pakistan, and the new Central Asia Regional Electricity Market (CAREM), 
a proposed collaboration between the five Central Asian countries and 
the United States government, other donors, and international financial 
institutions (IFIs) to establish a new, economically viable, market 
based system of regional electricity trade. I would also encourage 
Uzbekistan to continue its leadership in driving regional economic 
integration as seen this year in which Uzbekistan will host meetings of 
the Central Asia Trade Forum and the U.S.-Central Asia Trade and 
Investment Framework Agreement (TIFA) from October 15-18 in Tashkent. 
Finally, I would encourage the Uzbek Government to continue its support 
to Afghanistan as it did in December 2017, when the Uzbek and Afghan 
governments signed over twenty bilateral agreements in Tashkent, 
including trade and transit trade agreements to improve their economic 
relationship and deepen economic integration between both countries and 
the region. I would also encourage continued Uzbek support for Afghan 
educational exchanges, such as its hosting of over 100 Afghan youth at 
a school in the southern city of Termez.
    The United States and Uzbekistan share a common goal in 
Afghanistan: to ensure regional stability, especially by reducing the 
threat posed by terrorist organizations operating in the region. We 
agree there is not a military solution to the conflict but rather the 
best avenue to achieve stability is through a negotiated political 
settlement between the Afghan Government and the Taliban. We welcome an 
effective Uzbek role in supporting an Afghan-led peace process, 
including by urging the Taliban to negotiate directly with the Afghan 
government. We will continue to work closely with Uzbekistan 
bilaterally and in constructive multilateral fora to bring the Taliban 
to the negotiating table and promote regional peace and stability.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Daniel N. Rosenblum by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been a 
consistent element throughout my professional career. My very first job 
after college was as a research assistant to a Member of the British 
House of Lords, who was Chairman of the Parliamentary Human Rights 
Group. I supported his work on behalf of political prisoners in East 
Timor, Pakistan, and China, and did an analysis of the electoral system 
of Guyana, later published by Americas Watch. This and similar efforts 
eventually led to freer elections and a change in political leadership 
in that country.
    During my four years with Senator Carl Levin, my portfolio included 
human rights and democracy promotion. I initiated and collaborated on 
numerous legislative efforts, such as advocacy on behalf of political 
prisoners in the Soviet Union and persecuted ethnic minorities in 
Eastern Europe, and renaming the street in front of the U.S. Holocaust 
Museum to honor Raoul Wallenberg, who saved thousands of Jews in 
Hungary during World War Two. I also drafted legislation the Senator 
sponsored to permit the Overseas Private Investment Corporation to 
operate in Poland, an effort to promote the nascent private sector at 
the very beginning of Poland's democratic transition.
    During the six years I worked for the Free Trade Union Institute 
(now part of the Solidarity Center), I managed grants from the National 
Endowment for Democracy and USAID aimed at supporting emerging 
independent trade unions throughout the former Soviet republics. We 
provided training and equipment that helped these groups to organize on 
behalf of workers in the coal, garment, and metallurgical industries, 
as well as among teachers, air traffic controllers and other public 
sector employees. As a result of our programs, workers throughout the 
region for the first time in 80 years were actually represented by 
organizations that advocated for fair compensation and benefits, 
workplace health and safety, and other labor rights.
    During my 17 years at the Department of State, I coordinated U.S. 
foreign aid throughout the former Soviet Union and Eastern Europe, and, 
in that capacity, ensured that sufficient resources and the right kinds 
of programs were devoted to the promotion of human rights and 
democracy. There are literally hundreds of examples of this effort, but 
I would single out the work I coordinated to promote basic democratic 
institutions (independent media, civil society, rule of law, a vibrant 
private sector, free and fair elections) in countries like Ukraine, 
Georgia, Kosovo, and the Kyrgyz Republic. While progress in these and 
other countries in the region has been uneven and sometimes 
characterized by two steps back for every one forward, we have also 
seen examples of real progress toward more open and accountable 
governance, freer press, and more active and effective civil society 
organizations.
    Finally, over the past four years as a Deputy Assistant Secretary 
for South and Central Asia, I have had numerous opportunities to raise 
concerns about human rights and democracy with government officials. I 
am particularly proud of the role I played in highlighting concerns 
about unjustly imprisoned political activists, journalists, and human 
rights defenders. Not only did I raise these cases directly with senior 
officials, but in a few instances had the difficult but important 
experience of meeting prisoners' families to hear their stories and 
express sympathy for the plight of their loved ones. Although many of 
these prisoners have still not been released to date, I am pleased to 
say that, in Uzbekistan, every one of the individuals whose cases I 
raised between 2014 and 2016 has now been released from prison.

    Question 2. What are the most pressing human rights issues in 
Uzbekistan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Uzbekistan? What do 
you hope to accomplish through these actions?

    Answer. The Mirziyoyev administration has released more than 40 
prisoners of conscience, and for the first time in more than two 
decades the committee for the Protection of Journalists has declared 
Uzbekistan's prisons free of journalists imprisoned as a result of 
their reporting. According to Uzbekistan officials, law enforcement 
agencies have removed nearly 23,000 people since 2017 from so-called 
security ``black lists,'' which restricted civil liberties due to 
allegations of ``religious extremism.'' If confirmed, my embassy team 
and I would continue to build on the momentum in this area by actively 
engaging with Uzbekistan to address any remaining persons who were 
unjustly imprisoned for exercising basic internationally recognized 
human rights and fundamental freedoms. We would urge the Government to 
continue such releases, to treat freed individuals with dignity and to 
extend to them the necessary authorizations and documents required to 
make their new status complete and permanent. We hope that as political 
and rule of law reforms continue, the practice of holding political 
prisoners will soon be viewed purely as part of Uzbekistan's past.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Uzbekistan in 
advancing human rights, civil society and democracy in general?

    Answer. Uzbekistan's reform agenda has to date been initiated and 
driven from the top and power remains concentrated in the hands of the 
President. In order to last, such comprehensive reforms cannot rely 
only on the intentions and actions of one man but must be 
institutionalized in the form of laws, regulations and new societal 
norms that govern behavior and expectation. This is likely to be a 
lengthy and complicated process, and will require more involvement at 
all levels of society. Second, Uzbekistan's political system does not 
include genuine political competition, and political activity is 
limited at the grassroots level. It will take time to break away from 
the past to cultivate and nurture public participation in democratic 
governance. President Mirziyoyev has set Uzbekistan on a positive 
trajectory with respect to human rights. While highlighting our respect 
for Uzbekistan's sovereignty, independence, and territorial integrity, 
the United States must continue to encourage Uzbekistan to remain on 
the path of political and economic reform, focusing on guaranteeing the 
political and economic rights of all individuals, and 
institutionalizing reforms for the long term.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Uzbekistan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if I am confirmed, I am absolutely committed to 
meeting with members of civil society and other nongovernmental 
organizations, both in the U.S. and in Uzbekistan. I firmly believe an 
independent and vibrant civil society is central to Uzbekistan's 
healthy political, social and economic development, and to the success 
of President Mirziyoyev's reform agenda. I also believe that the U.S. 
Government should frequently consult with our own NGO's with expertise 
in civil society development to gain insights and ideas for how to 
support civil society in Uzbekistan.
    If confirmed, I would remind the Government of Uzbekistan that the 
expansion of U.S.-Uzbekistan security cooperation is contingent on 
ensuring that Uzbekistan's security forces, police and military forces 
respect human rights. In Uzbekistan, as elsewhere, the U.S. declines to 
provide security assistance to any unit when we have credible 
information that the unit has committed a gross violation of human 
rights, until and unless governments take effective steps to bring 
those responsible to justice. If confirmed, I would closely monitor all 
our security cooperation with Uzbekistan to ensure that it is 
reinforcing respect for human rights, and would make clear to my 
country team and all U.S. Government elements involved in such 
cooperation that this is one of its essential goals.

    Question 5. Will you and your embassy team actively engage with 
Uzbekistan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Uzbekistan?

    Answer. The Mirziyoyev administration has released more than 40 
prisoners of conscience, and for the first time in more than two 
decades the committee for the Protection of Journalists has declared 
Uzbekistan's prisons free of journalists imprisoned as a result of 
their reporting. According to Uzbekistan officials, law enforcement 
agencies have removed nearly 23,000 people since 2017 from so-called 
security ``black lists,'' which restricted civil liberties due to 
allegations of ``religious extremism.'' If confirmed, my embassy team 
and I would continue to build on the momentum in this area by actively 
engaging with Uzbekistan to address any remaining persons who were 
unjustly imprisoned for exercising basic internationally recognized 
rights. We would urge the Government to continue such releases, to 
treat freed individuals with dignity and to extend to them the 
necessary authorizations and documents required to make their new 
status complete and permanent. We hope that as political and rule of 
law reforms continue, the practice of holding political prisoners will 
soon be viewed purely as part of Uzbekistan's past.

    Question 6. Will you engage with Uzbekistan on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Following the admirable example of current Ambassador 
Spratlen, if confirmed, I will continue to engage with Uzbekistan on 
matters of human rights, civil rights, and governance as a top priority 
of the bilateral mission.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise any concerns that I may have about 
potential violations of these laws, regulations and rules through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise any concerns that I may have about 
potential violations of these laws, regulations and rules through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Uzbekistan?

    Answer. Neither I nor any member of my family has any direct 
financial interests in Uzbekistan. My investment portfolio includes 
diversified mutual funds that may hold interests in companies with a 
presence in Uzbekistan. These mutual funds are exempt from the conflict 
of interest laws. In general, I am committed to ensuring that my 
official actions will not give rise to any conflicts of interest, and I 
will remain vigilant with respect to my ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will seek to build an Embassy team that is 
both diverse and cohesive, celebrating the differences in our 
respective backgrounds while maintaining a sense of shared mission. I 
will make it a priority to encourage the recruitment and professional 
development of a staff that represents the face of America. I will try 
to learn as much as I can about each of my team members, and find ways 
to value and to benefit from their different traditions and life 
experiences.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will make it a top priority to foster an 
Embassy work environment characterized by mutual respect, inclusivity, 
and tolerance for differences. I will communicate to senior staff from 
the start that I will not abide discrimination and harassment in the 
workplace or within the Embassy community generally. In advance of the 
annual personnel assignment process, I will communicate to each 
supervisor my expectation that we are welcoming applications from the 
widest possible group of qualified candidates, and that they should 
proactively reach out to colleagues from diverse backgrounds and invite 
them to apply for Embassy positions.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Uzbekistan 
specifically?

    Answer. Corruption undermines the foundations of democratic 
governance. It destroys trust between the Government and the governed, 
and makes it nearly impossible to establish a system based on rule of 
law. In corrupt societies, the judiciary and law enforcement become 
politicized and subject to improper influence, thereby losing the 
confidence of businesses, other private organizations and ordinary 
citizens. All societal transactions become based on informal payments 
and personal connections, not on merit and adherence to the rules. 
Corruption can seep into all sectors of a society, for example limiting 
access to quality medical care only to those who can pay the necessary 
informal ``fees,'' or greatly lowering standards in the educational 
system by rewarding ability to pay for good grades or admission to 
university rather than academic excellence. Such societies cannot 
achieve their full economic potential or attract sufficient foreign 
investment; they are often characterized by political instability as 
well. In its 26 years as an independent state, Uzbekistan has 
experienced relatively high levels of corruption and has suffered some 
of the consequences outlined above. It has certainly affected 
governance, rule of law, and economic development in Uzbekistan. 
Fortunately, the current government has recognized the damaging impact 
of corruption on the country's development. President Mirziyoyev has 
made addressing corruption one of his top stated priorities.

    Question 13. What is your assessment of corruption trends in 
Uzbekistan and efforts to address and reduce it by that government?

    Answer. The Government of Uzbekistan historically has been 
considered one of the most corrupt in the world. Since President 
Mirziyoyev's 2016 election, the Government has openly acknowledged that 
corruption is endemic and taken concrete steps to address it, including 
creation of the Interagency Commission on Countering Corruption, 
chaired by the Prosecutor General. The Government continues to engage 
with the United States' assistance programs on justice sector reforms, 
including steps to increase the independence and professionalism of the 
judiciary, provide for more judicial control over investigative 
processes, and strengthen the role of the defense bar. For example, the 
Government is implementing a process for random assignment of judges as 
one step to reduce corruption. With U.S. support, the Government has 
also been rolling out an ``e-court'' system for civil courts that will 
greatly simplify the process for filing cases as well as provide for 
increased transparency, and the Tashkent State University of Law will 
be implementing a ``Street Law'' program for high school students that 
will have an anticorruption component. The Government has also 
committed to work with the U.S. on a new program to strengthen its 
legal and institutional capacity to investigate and prosecute complex 
corruption and enhance implementation of Istanbul Anti-Corruption 
Action Plan (IAAP) recommendations. The Government has also prosecuted 
a number of law enforcement officials for corruption, including 
Ministry of Interior Lt. Col. Odiljon Soliyev for selling exit visas to 
militants.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Uzbekistan?

    Answer. If confirmed, I will support existing U.S. funded good 
governance and anticorruption assistance programs and will prioritize 
such programs in future budget years. I will signal U.S. Embassy 
support for such programs and their objectives at every appropriate 
opportunity, including in meetings with Government of Uzbekistan 
officials, participation in the programs' public events. I will also 
use public diplomacy tools such as speakers' programs and the 
International Visitor Leadership Program (IVLP) to support these 
objectives.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                   Kip Tom by Senator Robert Menendez

    Question 1. Recognizing that you have spent much of your career 
outside of government, what are the most important actions you have 
taken in your career to date to support democracy and human rights? 
What has been the impact of your actions?

    Answer. Every person has an affirmative duty to help create an 
environment in which human rights are promoted and respected. In our 
own family of businesses, in my civic and philanthropic engagement, and 
as a leader in the agriculture-technology industry, I have always made 
it a point to advocate for human rights. Whether working on my farm in 
Indiana, serving on the Boards of the National FFA Organization and 
National 4-H Council, or traveling abroad in the developing world, I 
have always believed it my duty to support human rights, uphold 
democratic principles, and serve my community.
    I have and will continue to support our political representatives, 
business leaders, and organizations in their efforts to promote human 
rights and, if confirmed, I will utilize my platform at the U.N. 
Agencies in Rome to continuously reaffirm our commitment to protecting 
human rights, preserving the dignity of those we have the privilege of 
assisting, and utilizing our expertise to make a difference across the 
globe.

    Question 2. Do you feel that promoting democracy and human rights 
abroad is in the U.S. national interest?

    Answer. Promoting human rights, fundamental freedoms, and democracy 
around the world has been a bedrock principle of U.S. foreign policy 
for decades, has created enormous goodwill and trust towards the United 
States, and has demonstrably strengthened the security of America and 
our allies. In recent remarks, Secretary Pompeo laid out a human rights 
vision for the United States to pursue, and if confirmed I will fully 
support and promote those objectives. We are a more secure and more 
prosperous nation, and are more able to challenge our adversaries and 
counter threats to our security, when we project core American values 
including democracy and human rights abroad.

    Question 3. What issues are the most pressing challenges to 
democracy or democratic development today across the globe? Please be 
as specific as possible.

    Answer. The United States remains the world's strongest proponent 
of human rights and fundamental freedoms around the world. I fully 
support and, if confirmed, will actively promote our multilateral human 
rights agenda as enunciated by Secretary Pompeo. In areas where the 
U.N. is prepared to take meaningful and decisive action, the United 
States will continue to partner with likeminded allies to address 
challenges to fundamental freedoms including freedom of religion or 
belief, freedom of expression, freedom of association, and the right of 
peaceful assembly, as well as to address specific human rights 
situations including in Iran, North Korea, China, Venezuela, Syria, 
Burma, and Crimea.

    Question 4. If confirmed, how will you use your position to further 
democracy and human rights globally?

    Answer. As the strongest promoter of human rights and fundamental 
freedoms around the world, the United States works closely with 
likeminded partners to promote and defend human dignity. However, some 
countries are not interested in making the U.N. a more effective 
advocate for human rights, either because of complacency with the 
status quo or because U.N. human rights mechanisms are themselves 
protecting human rights abusers from scrutiny. If confirmed, I will 
actively promote our multilateral human rights agenda as enunciated by 
Secretary Pompeo, including by promoting reform of U.N. human rights 
mechanisms, and pressing U.N. member states to insist that U.N. human 
rights mechanisms genuinely address human rights concerns and do not 
unfairly criticize Israel.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Kip Tom by Senator Benjamin L. Cardin

    Question 1. Sustainable development goal number two calls for 
``zero hunger'' by 2030. Do you believe this goal is achievable?

    Answer. The 2030 Agenda for Sustainable Development and its 
associated 17 Sustainable Development Goals are a U.N. framework for 
development. I believe that although the world has seen an increase in 
the number of hungry people, mainly due to conflict, the goal of zero 
hunger by 2030 is obtainable. If confirmed, I will work with the Rome-
based U.N. agencies and other partners to ensure that food insecure 
people worldwide have the tools they need to pull themselves out of 
poverty wherever possible.

    Question 2. Sustainable development goal number two calls for 
``zero hunger'' by 2030. What can the U.S. do to help the world reach 
this goal?

    Answer. The focus should be not on development assistance alone, 
but also the mobilization and effective use of domestic resources and 
with the strong participation of the private sector. Our commitment to 
international development is enshrined in President Trump's National 
Security Strategy, and we remain the largest provider of Official 
Development Assistance. If confirmed, I will work with the Rome-based 
U.N. agencies to assist developing countries enable their private 
sectors to increase agricultural production, promote domestic food 
security, and create jobs. However, we can't do this alone; I will also 
work with our development partners to help achieve this goal.

    Question 3. Do you believe the U.S. contributes too much money to 
UNFAO?

    Answer. I will ensure that the substantial contributions of the 
American taxpayer yield results. FAO's mandate to eradicate hunger and 
poverty, improve nutrition, and promote sustainable management and use 
of natural resources supports broader U.S. national security 
objectives. FAO promotes economic growth and regional stability through 
its efforts to rehabilitate economic livelihoods post disaster or 
conflict. FAO's work supports U.S. trade in agricultural products and 
contains animal and plant diseases that can impact human health and 
damage the U.S. agricultural sector. However, success is not measured 
by dollars spent, but by the number of people those dollars help lift 
out of poverty and make food secure. If confirmed, one of my priorities 
will be making sure that those who are food insecure receive the 
resources they need to achieve food security.

    Question 4. Will you advocate for consistent funding in future 
budget years for UNFAO?

    Answer. I will be a strong advocate for advancing U.S. national 
interests at FAO and the other international organizations under the 
jurisdiction of the U.S. mission in Rome consistent with administration 
priorities. That advocacy will include calling upon other countries and 
donors to help ensure that the organizations have the resources needed 
to perform their missions. While the United States has been the largest 
contributor to these organizations, other countries and donors can, and 
should, do more.

    Question 5. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Every person has an affirmative duty to help create an 
environment in which human rights are promoted and respected. In our 
own family of businesses, in my civic and philanthropic engagement, and 
as a leader in the agriculture-technology industry, I have always made 
it a point to advocate for human rights. Whether working on my farm in 
Indiana, serving on the Boards of the National FFA Organization and 
National 4-H Council, or traveling abroad in the developing world, I 
have always believed it my duty to support human rights, uphold 
democratic principles, and serve my community.
    I have and will continue to support our political representatives, 
business leaders, and organizations in their efforts to promote human 
rights and, if confirmed, I will utilize my platform at the U.N. 
Agencies in Rome to continuously reaffirm our commitment to protecting 
human rights, preserving the dignity of those we have the privilege of 
assisting, and utilizing our expertise to make a difference across the 
globe.

    Question 6. What are the most pressing human rights issues at the 
United Nations? What are the most important steps you expect to take--
if confirmed--to promote human rights and democracy issues at the U.N.? 
What do you hope to accomplish through these actions?

    Answer. The United States remains the world's strongest proponent 
of human rights and fundamental freedoms around the world, including at 
the United Nations. I fully support and, if confirmed, will actively 
promote our multilateral human rights agenda as enunciated by Secretary 
Pompeo. In areas where the United Nations is prepared to take 
meaningful and decisive action, the United States will continue to 
partner with likeminded allies to address challenges to fundamental 
freedoms including freedom of religion or belief, freedom of 
expression, freedom of association, and the right of peaceful assembly, 
as well as to address specific human rights situations including in 
Iran, North Korea, China, Venezuela, Syria, Burma, and Crimea.

    Question 7. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the U.N. in 
advancing human rights, civil society and democracy in general?

    Answer. As the strongest promoter of human rights and fundamental 
freedoms around the world, the United States works closely with 
likeminded partners within the United Nations to promote and defend 
human dignity and to address specific human rights situations. However, 
some countries are not interested in making the U.N. a more effective 
advocate for human rights, either because of complacency with the 
status quo or because U.N. human rights mechanisms are themselves 
protecting human rights abusers from scrutiny. If confirmed, I will 
actively promote our multilateral human rights agenda as enunciated by 
Secretary Pompeo, including by promoting reform of U.N. human rights 
mechanisms, in particular of the Human Rights Council, and pressing 
U.N. member states to insist that U.N. human rights mechanisms 
genuinely address human rights concerns and do not unfairly criticize 
Israel.
    Question 8. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will immediately implement a plan of 
inclusion and diversity among staff in the missions and will work to 
create an environment where everyone feels comfortable discussing 
issues, is part of measuring our success frequently, and will strongly 
support making the necessary adjustments to support every individual's 
rights and dignity.

    Question 9. What steps will you take to ensure each of the 
supervisors at the U.S. Mission to the U.N. agencies in Rome are 
fostering an environment that is diverse and inclusive?

    Answer. If confirmed, I first intend to lead by example--I will 
display to the supervisors at the Mission that fostering an environment 
that is diverse and inclusive is something that I value greatly. More 
specifically, I will work with the three individual Executive Directors 
or Secretariates of the WFP, FAO and IFAD in reviewing their Missions' 
policies supporting diversity and inclusivity and I will continuously 
monitor their progress and outcomes.
    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Donald Yamamoto by Senator Robert Menendez

    Question 1. Is the approach the administration is taking in Somalia 
appropriately balanced between defense, diplomacy and development? If 
confirmed, what role will you play in ensuring a proper balance between 
the three D's in Somalia?

    Answer. Defense, diplomacy, and development are integral parts of 
the U.S. Government's whole-of-government approach in Somalia. Our 
primary diplomatic and development goals are to assist Somali-led 
efforts to: 1) build security forces that can combat terrorism and 
provide stability; 2) advance the federalism and political 
reconciliation processes, including completing the constitutional 
review and preparing for one-person, one-vote elections in 2020/21; 3) 
promote economic growth and job creation; and 4) provide lifesaving 
humanitarian assistance while building resilience among Somalis to 
withstand future shocks. U.S. military efforts in Somalia directly 
support these goals by strengthening security and stability, which are 
fundamental to opening up space for political and development efforts.
    If confirmed, I will ensure close coordination between all elements 
of the U.S. Government in the field involved in the three D's and 
provide oversight to ensure those efforts are consistent with our whole 
of government approach.

    Question 2. How much has security assistance to Somalia increased 
to support increased U.S. military action, if at all? Have we 
accelerated our training of the Somalia National Army (SNA) over the 
past year to improve its capacity? How long have we been providing 
assistance to the SNA, and when will they be capable of taking over 
security from the African Union Mission in Somalia? Have our military 
actions and assistance to the SNA significantly degraded Al Shabaab's 
ability to carry out attacks?

    Answer. While military action and security assistance are both 
components of our overall strategy to stabilize Somalia, they are 
separate lines of effort, and our security assistance funding requests 
are based solely on program requirements and partner nation capacity.
    We have not accelerated our training of the Somali National Army 
(SNA) over the last year, owing to limited capacity, weak institutional 
structures, and persistent problems with regard to accountability 
within the organization. Instead, we have restricted our assistance to 
SNA units receiving persistent mentorship from the U.S. military and 
implementing partners, in order to ensure we have sufficient visibility 
over the use of U.S. assistance. We will not seek to expand our 
training support until the endemic accountability issues within the SNA 
are addressed by the Federal Government of Somalia.
    We have been supporting the SNA since 2007, although significant 
support dates back to FY 2009. Nonetheless, given the extremely low 
baseline of capabilities and weak institutional structures within the 
SNA, I assess that it will be many years before the SNA and other 
Somali security forces will be fully capable of assuming security 
responsibilities from the African Union Mission in Somalia (AMISOM). We 
continue to favor a gradual transition of security responsibilities 
that will enable the incremental reduction in AMISOM forces without 
opening up any significant security vacuums.
    I assess that our assistance to the SNA and direct military action 
(as well as our support for AMISOM) have indeed degraded al-Shabaab and 
hampered its ability to carry out attacks. Nonetheless, al-Shabaab 
remains a formidable threat, and continued U.S. engagement will be 
necessary to ensure its efforts continue to be disrupted. This includes 
continued U.S. engagement on the political and economic fronts, as I 
believe that al-Shabaab cannot be defeated solely through military 
means.

    Question 3. Has there been an increase in the number of foreign 
service officers assigned to serve at our embassy in Somalia since 
January 2017? If not, what are the constraints? Has the number of 
individuals in Washington working on the Somalia desk or in other 
capacities focused on Somalia at the State Department increased since 
January 2017? If not, what are the constraints?

    Answer. There has been no increase in the number of officers 
assigned to the U.S. Mission to Somalia or to Somalia-focused positions 
at the State Department since January 2017. All positions at U.S. 
Mission to Somalia are assigned to Nairobi while security and safety 
mitigation measures at our facility in Mogadishu are being completed. 
No Foreign Service Officers can be assigned to Mogadishu pending 
completion of those measures and contingent on a determination by the 
Secretary to waive the requirements under the Secure Embassy 
Construction and Counterterrorism Act, as well as compliance with all 
applicable Overseas Security Policy Board standards. The creation of 
new Somalia-related positions in Washington or in the field are subject 
to the same resource constraints as any new Department positions.

    Question 4. Have we increased the number of development programs 
and/or activities being undertaken in Somalia since January 2017? Has 
funding for development programs and/or activities increased over the 
past two fiscal years?

    Answer. U.S. development funding for Somalia increased from roughly 
$50 million in FY 2016 to $62 million in FY 2017. This has helped 
enable an expansion of development activities since January 2017, 
particularly in the areas of stabilization and the rule of law.

    Question 5. Has funding for countering violent extremism (CVE) in 
Somalia increased since January 2017? In what ways has our CVE approach 
in Somalia evolved since January 2017?

    Answer. In calendar years 2017 and 2018, Partnership for Regional 
East Africa Counterterrorism (PREACT) funds were used to support 
programs that increase the capacity of the Federal Government of 
Somalia to process, rehabilitate, and reintegrate disengaged fighters. 
The United States also promotes the Somali National Defector 
Rehabilitation Programme through strategic communications and 
community-based social reconciliation. The United States also 
prioritizes CVE campaigns to amplify local voices of peace and 
tolerance to counter terrorist messages. Through assessments, 
monitoring, and evaluation, the U.S. Government continuously modifies 
and adapts its CVE approach to ensure that it is relevant and 
appropriate to counter extremist threats and narratives in Somalia.

    Question 6. What has been the effect of the Gulf dispute on Somalia 
in terms of political stability and efforts to strengthen the 
relationship between the Federal government and Federal Member states?

    Answer. I understand the Gulf dispute has affected the Horn of 
Africa as both sides vie for political and economic influence. The UAE 
has put significant pressure on Mogadishu to side against Qatar, and 
also engaged with Somalia's Federal Member States in ways that have 
exacerbated tension between federal and regional authorities. This 
tension has distracted the Somali authorities significantly from 
efforts to advance the federalism process, make progress on security 
sector reform, and combat al-Shabaab and ISIS. Qatar, in turn, has 
increased its outreach to Somalia and sought to fill funding gaps left 
by the deterioration in UAE-Somalia relations. Somalia's long-term 
stability depends heavily on Mogadishu and its Federal Member States 
reaching agreement on an appropriate delineation of authorities between 
national and regional levels.

    Question 7. In your view, what role should the U.S. play to 
mitigate the effects the Gulf dispute is having in Somalia?

    Answer. I believe we should discourage countries engaged in the 
Gulf dispute from pressuring Somalia to take sides, which runs counter 
to shared goals of promoting peace and stability in the Horn of Africa. 
We should also encourage Somalia to avoid taking steps that could be 
perceived by either side as taking sides in the dispute.

    Question 8. What is the status of DP World's agreement to develop 
an economic zone and port in Somaliland? Does pursuing such an 
agreement with Somaliland bypass the legitimate authority of the Somali 
Federal government, as has been claimed? What is the U.S. position on 
these efforts, and what messages should we be sending to the parties 
involved about the advisability of moving forward with the deal?

    Answer. I understand DP World signed an agreement in March with the 
government of Somaliland to develop the port of Berbera and that the 
first phase of the $442 million expansion is scheduled to begin in 
October. The Federal Government of Somalia maintains that the deal 
violates the Somali provisional constitution because Somaliland signed 
it without Mogadishu's consent. The United States understands this is a 
commercial transaction but generally advises third parties to avoid 
actions that could exacerbate tensions surrounding the dispute related 
to Somali sovereignty over Somaliland. The United States encourages the 
authorities in Mogadishu and Somaliland to resume direct talks on 
reconciliation, including economic cooperation.

    Question 9. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over the course of my career, I have continuously worked to 
promote human rights, dating back to the time I served as Human Rights 
Officer at U.S. Embassy Beijing during the Tiananmen Square crisis in 
1989, when I wrote the hard-hitting Human Rights Report documenting the 
many violations during that time period. As U.S. Ambassador to 
Ethiopia, I advocated for the release of 15,000 political prisoners in 
Ethiopia. More recently, as Acting Assistant Secretary in the Bureau of 
African Affairs, I have led our efforts to promote human rights in 
Nigeria, Cameroon, Democratic Republic of Congo, Zimbabwe, and others.

    Question 10. What issues are the most pressing challenges to 
democracy or democratic development in the Federal Republic of Somalia? 
These challenges might include obstacles to participatory and 
accountable governance and institutions, rule of law, authentic 
political competition, civil society, human rights and press freedom. 
Please be as specific as possible.

    Answer. The most pressing governance and democracy issues in 
Somalia include restrictions on freedoms of speech and press, assembly 
and movement, and arbitrary and politically motivated arrest and 
detentions, including of journalists. Widespread political corruption, 
including vote-buying, is another significant obstacle to the 
development of a transparent, accountable democratic system in Somalia.

    Question 11. What steps will you take--if confirmed--to support 
democracy in the Federal Republic of Somalia? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. If confirmed, I will work with Somalis to implement their 
reform agenda for advancing the federalism process, finalizing their 
constitution, advancing reconciliation, and agreeing upon and 
implementing an electoral model for ``one-person, one-vote'' elections 
in 2020/21. These efforts will spearhead the push to achieve a 
transparent and accountable political system that serves the public. 
Widespread corruption among political elites will remain the primary 
challenge to progress in democracy and governance. I would encourage 
the Somali administration to take credible steps to stamp out 
corruption and establish strong electoral institutions to enable the 
elections to be free, fair and inclusive.

    Question 12. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work to ensure that U.S. Government 
resources are used effectively, particularly for Democracy Rights and 
Governance (DRG) programming. USAID programming is currently being used 
to support governance programs to help develop institutional capacity 
and service delivery, improve transparency, and establish the 
ruleoflaw, and I would continue to prioritize this programming.

    Question 13. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in the Federal Republic of Somalia? What steps will you take to 
pro-actively address efforts to restrict or penalize NGOs and civil 
society via legal or regulatory measures?

    Answer. Yes, I am committed to working with both U.S. and local 
civil society organizations, including organizations led by Somali-
Americans and other diaspora members, to promote our human rights 
objectives. If confirmed, I will engage both publicly and privately to 
ensure that NGOs, civil society members, and ordinary citizens do not 
face retaliation for expressing their viewpoints and are empowered to 
contribute to political reforms and processes.

    Question 14. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I will work to ensure that the United States 
provides all possible support to facilitate an inclusive democratic 
political environment in Somalia. I will meet with representatives of 
all political parties and factions and advocate for the right of 
political opposition groups, civil society, the press, and others to 
peacefully express their views as it is essential that the Somali 
people enjoy both the right to free speech and the ability to be fully 
informed. I will also work to ensure that women and youth are engaged 
as meaningful participants at the negotiating table. When they are, 
they enlarge the scope of agreements and focus attention on a broader 
set of critical societal priorities required to achieve just and 
sustainable peace.

    Question 15. Will you and your embassy team actively engage with 
the Federal Republic of Somalia on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in the Federal Republic of 
Somalia?

    Answer. Supporting media freedom and the protection of journalists 
is vital to the development of democracy in Somalia. Somalia is one of 
the most dangerous countries for journalists to operate in, and many 
face arrest, intimidation, censorship, threats of violence, and acts of 
violence just for doing their jobs. If confirmed, I will regularly 
raise concerns about freedom of expression and violence targeted 
against journalists with Somali government counterparts and meet with 
local independent journalists to hear their concerns.

    Question 16. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will continue Mission Somalia's public 
diplomacy efforts to ensure the Somali public has access to accurate 
and relevant information about Somali society. I commit to engaging 
with both civil society and government counterparts on countering 
disinformation and misinformation and will take full advantage of our 
social media platforms to do so.

    Question 17. Will you and your embassy teams actively engage with 
the Federal Republic of Somalia on the right of labor groups to 
organize, including for independent trade unions?

    Answer. The provisional constitution provides for the right of 
workers to organize but employers and the authorities have not 
respected the right to free association. If confirmed, I will work to 
ensure that the rights of Somali workers are respected in accordance 
with both Somali and international labor laws.

    Question 18. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the Federal 
Republic of Somalia, no matter theirsexual orientation or gender 
identity? What challenges do lesbian, gay, bisexual, transgender and 
intersex (LGBTI) people face in the Federal Republic of Somalia? What 
specificallywill you commit to do to help LGBTI people in the Federal 
Republic of Somalia?

    Answer. If confirmed, I will commit to defending the human rights 
of all Somalis, regardless of sexual orientation or gender identity. 
Same-sex sexual contact is punishable by imprisonment and the law does 
not prohibit discrimination based on sexual orientation or gender 
identity. While there is limited information about the challenges faced 
by LGBTI individuals in Somalia, they face harassment and violence--
earlier this year, we heard the first reports of al-Shabaab executing 
two men reportedly on the basis of their homosexuality. As the 
Secretary stated on the International Day Against Homophobia, 
Transphobia and Biphobia confirmed, ``the United States stands with 
people around the world in affirming the dignity and equality of all 
people regardless of sexual orientation, gender identity or expression, 
or sex characteristics. Human rights are universal, and LGBTI people 
are entitled to the same respect, freedoms, and protections as everyone 
else.'' If confirmed, I will ensure that our efforts to promote human 
rights in Somalia are fully inclusive.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Donald Yamamoto by Senator Benjamin L. Cardin

    Question 1. Animosity toward the African Union Mission in Somalia 
(AMISOM) is on the rise. How can the U.S. help bolster AMISOM?

    Answer. The AU Mission in Somalia (AMISOM) remains critical to the 
stabilization of Somalia, and its continued presence is necessary to 
provide time and space to build effective Somali security institutions. 
Since AMISOM deployed in 2007, the United States has obligated more 
than $1.05 billion to provide equipment, training, advisory, 
logistical, and other support for AMISOM troop contributing countries. 
I understand that this support has had a demonstrable positive effect 
on the capabilities of the AMISOM peacekeepers, and believe that 
continuing this support will allow AMISOM to continue to play its 
valuable role.

    Question 2. Will you commit to demonstrating sustained U.S. support 
for AMISOM?

    Answer. I will commit to our continued support to AMISOM and the 
AMISOM troop contributing countries as we support a smart and 
deliberate eventual conditions-based transition from AMISOM to Somali 
security forces.

    Question 3. Roughly how much of the population in Somalia relies on 
their daily food supplies from international organizations and 
nonprofits?

    Answer. Of the 12.3 million people estimated to live in Somalia, 
5.4 million people require humanitarian assistance with 2.5 million 
facing life-threatening food insecurity. In July of this year, relief 
agencies distributed emergency food assistance to nearly 2.2 million 
people countrywide.

    Question 4. What role if any can the U.S. play in improving the 
food security situation in Somalia?

    Answer. Since the 2011 humanitarian crisis, humanitarian partners 
have implemented multi-sectoral programs in Somalia to support 
household--and community-level disaster risk reduction activities, 
increase crop production, build incomes, and strengthen community-level 
management of risks, all of which have helped build the capacity of 
communities to respond to crises.
    The ongoing humanitarian and protection crisis in Somalia results 
from cycles of drought and floods, as well as protracted conflict. 
While food security has improved slightly due to a sizable scale up in 
the humanitarian response in 2017 and recent record levels of seasonal 
rains, these gains are fragile. Sustained life-saving assistance, 
coupled with interventions aimed at building resilience, is critical to 
help vulnerable households meet basic needs, reduce acute malnutrition, 
and protect livelihoods. The United States is the single largest donor 
responding to the Somalia crisis, providing nearly $642 million in 
humanitarian assistance since the beginning of Fiscal Year 2017, 
including more than $221 million to date this fiscal year.

    Question 5. Neighboring Ethiopia and Eritrea have recently 
announced an effort to improve relations and ease decades-long 
tensions. What impact will an improvement in relations between those 
two countries have on Somalia?

    Answer. The improving relationship between Ethiopia and Eritrea 
offers an opportunity for increased stability in the Horn of Africa and 
cooperation among Somalia's neighbors, which could be beneficial for 
Somalia. Somali President Mohamed Abdullahi Mohamed ``Farmaajo'' 
visited Eritrea in July, raising the possibility of improved relations 
between Somalia and Eritrea, which have not had diplomatic relations 
for nearly fifteen years.

    Question 6. How would you characterize relations between Somalia 
and Somaliland? Is it premature for the U.S. or other members of the 
international community to be focused on reunification, given other 
challenges facing Somalia?

    Answer. I understand that tensions between Somaliland and Puntland, 
particularly over the disputed regions of Sool and Sanaag, have been an 
area of concern in recent months with a significant impact on the 
overall Somalia--Somaliland relationship. The United States and other 
members of the international community can play an important role in 
facilitating reconciliation between Somalia and Somaliland if and when 
the two parties are ready to hold talks.

    Question 7. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of my career, I have continuously worked to 
promote human rights, dating back to the time I served as Human Rights 
Officer at U.S. Embassy Beijing during the Tiananmen Square crisis in 
1989, when I wrote the hard-hitting Human Rights Report documenting the 
many violations during that time period. As U.S. Ambassador to 
Ethiopia, I advocated for the release of 15,000 political prisoners in 
Ethiopia. More recently, as Acting Assistant Secretary in the Bureau of 
African Affairs, I have led our efforts to promote human rights in 
Nigeria, Cameroon, Democratic Republic of Congo, Zimbabwe, and others.

    Question 8. What are the most pressing human rights issues in 
Somalia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Somalia? What do 
you hope to accomplish through these actions?

    Answer. Al-Shabaab poses the greatest threat to human rights issues 
in Somalia, specifically their killing, torture, and other cruel, 
inhuman, and degrading treatment of civilians. We have also seen in 
Somalia cases of arbitrary and politically motivated arrest and 
detentions, including of journalists; use of child soldiers; 
restrictions on freedoms of speech and press, assembly and movement; 
and forced eviction, relocation and sexual abuse of internally 
displaced persons (IDPs). If confirmed, I will support the development 
of security and other government institutions that protect the 
country's citizens, operate under civilian control, and respect human 
rights and international law. I would also advocate for inclusive 
development practices throughout Somalia through community-driven 
development programs that encourage the participation of marginalized 
groups, including youth and women, in decision making processes for 
their communities.

    Question 9. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Somalia in 
advancing human rights, civil society and democracy in general?

    Answer. The Federal Government of Somalia's inability to govern 
areas of territory currently under the control of al-Shabaab, where 
human rights violations are most prevalent, is a significant obstacle. 
In addition, the lack of action taken by government authorities to 
prosecute and punish individuals involved in human rights violations 
will remain a serious challenge to advancing human rights in Somalia. 
If confirmed, I will work to ensure that the Federal Government of 
Somalia understands that our support is contingent upon demonstrated 
accountability for human rights violations. In addition, I will work to 
mitigate challenges to free expression, including freedom of the press, 
which is fundamental to ensuring electoral transparency and 
accountability as Somalia prepares for the 2020/2021 elections.

    Question 10. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Somalia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to working with both U.S. and local 
civil society organizations, including organizations led by Somali-
Americans and other diaspora members, to promote our human rights 
objectives. If confirmed, I will direct all personnel under chief of 
mission authority to proactively implement the Leahy Law and similar 
provisions and ensure that United States foreign assistance programming 
in Somalia reinforces human rights.

    Question 11. Will you and your embassy team actively engage with 
Somalia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Somalia?

    Answer. Yes, if confirmed, I will lead Mission Somalia's efforts to 
address cases of political prisoners or other politically-motivated 
intimidation and harassment, and make clear that such cases weaken 
progress toward a stable political system that is supported by the 
Somali public.

    Question 12. Will you engage with Somalia on matters of human 
rights, civil rights and governance as part of your bilateral 
mission?12

    Answer. Yes. A formal objective of U.S. Mission Somalia is building 
institutions to promote good governance and human rights, if confirmed, 
I will advance that objective through continuous engagement with the 
Federal Government of Somalia.

    Question 13. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 14. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 15. Do you or do any members of your immediate family have 
any financial interests in Somalia?

    Answer. No.

    Question 16. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. My experience leading U.S. Missions overseas has clearly 
demonstrated to me the importance of diversity in enabling an effective 
team. I am proud to say that during my tenure as Principal Deputy 
Assistant Secretary and Acting Assistant Secretary, the Bureau of 
African Affairs has led the Department in terms of having leadership 
from diverse backgrounds at the Chief of Mission and Deputy Chief of 
Mission levels. If confirmed, I will continue to promote and advocate 
diversity as a strength of Mission Somalia and mentor officers from a 
variety of different backgrounds to ensure our team is representative 
of the nation we serve.
    Question 17. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. As I have throughout my career, I will continue to advocate 
for reform of our personnel and human resources systems, recommending 
creative approaches to ensure we are attracting qualified officers from 
a variety of diverse backgrounds to serve in our Mission. If confirmed, 
I will ensure that Mission Somalia is an inclusive environment in which 
all staff feel safe and empowered to contribute their best work.

    Question 18. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Somalia 
specifically?

    Answer. I understand that corruption is one of the major factors 
affecting the public's support to the Federal Government of Somalia 
(and the Federal Member State governments). As in other countries, 
corruption is a significant driver of resources being diverted to 
terrorist groups and other non-state actors, and in Somalia, tackling 
the issue of corruption will be essential to the long-term success of 
counterterrorism efforts.

    Question 19. What is your assessment of corruption trends in 
Somalia and efforts to address and reduce it by that government?

    Answer. Corruption and lack of transparency remain some of the 
biggest governance challenges facing Somalia. Strong and transparent 
public financial management will be key for Somalia's stability and 
future growth. I am concerned about allegations of corruption and 
fiscal mismanagement in Somalia. The Federal Government of Somalia and 
the Federal Member State governments must take steps to ensure that 
public funds are spent responsibly and transparently; by doing so, it 
will earn the trust and confidence of the Somali people and the 
international community.

    Question 20. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Somalia?

    Answer. If confirmed, I will continue our support to the Federal 
Government of Somalia's efforts to tackle these challenges and will 
ensure that we continue to provide technical assistance on public 
financial management and financial governance initiatives. These 
measures will increase the public's faith in the ability of the Federal 
Government of Somalia to manage finances and provide services.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Donald Yamamoto by Senator Jeff Merkley

    Question 1. At your confirmation hearing, in response to my 
question about the ability of Mission staff to conduct meetings outside 
of the airport compound in Mogadishu, you emphasized the importance of 
engaging with Somali Federal Member States in other Somali cities. The 
United States remains the only major international partner in Mogadishu 
that does not permit its diplomats to travel off the compound. What 
guarantees did Secretary Pompeo provide that you and your team would be 
able to get off of the airport compound to do your work in Mogadishu?

    Answer. Engaging diplomatically throughout Somalia is critical to 
advancing our foreign policy and national security objectives in East 
Africa. If confirmed, I will work closely with the Bureau of Diplomatic 
Security to ensure sufficient security measures are in place to conduct 
such engagements safely and effectively. This includes the possibility 
of conducting off-compound movements in Mogadishu.

    Question 2. While a facility is not currently certified to host 
diplomatic personnel in Mogadishu, do you intend to join members of 
your team who accepted one-year positions based permanently in 
Mogadishu as soon as the certifications are completed for the facility 
(``Arc II'') to house Foreign Service Officers? If not, how do you plan 
to mitigate the challenges of leading staff that are based permanently 
in Mogadishu when you are not also based permanently there?

    Answer. If confirmed, and provided that the facility we are 
constructing in Mogadishu to house the U.S. Mission to Somalia is 
certified for occupancy, I will join those staff members in Mogadishu 
that are permanently assigned there.

    Question 3. At your confirmation hearing you emphasized that there 
is not an exclusively military solution to the conflict in Somalia. Can 
you please provide a breakdown in annual U.S. assistance to Somalia in 
the following categories: humanitarian; security (including assistance 
from the Bureau of International Narcotics and Law Enforcement, the 
Bureau of Counterterrorism and security assistance funds from the 
Bureau of African Affairs); and non-humanitarian development assistance 
administered by USAID. Is the current balance between these different 
types of assistance sufficient to achieve U.S. goals in Somalia?

    Answer. In FY 2017, the State Department and USAID allocated 
Somalia with roughly $985 million in bilateral foreign assistance. This 
includes more than $64 million in economic and development assistance, 
$315 million in security assistance, and $605 million in lifesaving 
humanitarian assistance. Of the security assistance, approximately $15 
million was Nonproliferation, Anti-terrorism, Demining, and Related 
Programs (NADR) funding administered by the Bureau of Counterterrorism; 
approximately $8 million was from International Narcotics Control and 
Law Enforcement (INCLE) funding administered by the Bureau of 
International Narcotics and Law Enforcement; and approximately $299 
million was from (Peacekeeping Operations) PKO funding administered by 
the Bureau of African Affairs. Achieving U.S. objectives in Somalia 
will require sustaining an appropriate balance of security, 
development, and humanitarian assistance from the United States and 
other international donors for the foreseeable future. While Somalia's 
development challenges are just as significant as its security 
challenges, the current balance between types of assistance is 
appropriate given long-standing U.S. experience and capabilities in 
security assistance compared to other international partners.

    Question 4. Are you satisfied with the monitoring and evaluation 
mechanisms that are currently in place to ensure that U.S. security 
assistance is not being diverted by corrupt actors or being used to 
perpetuate clan conflict? What metrics are you using to measure the 
effectiveness of our security assistance in achieving U.S. goals in 
Somalia?

    Answer. Following the pause in assistance to any non-mentored 
Somali military unit initiated in December 2017, the majority of U.S. 
security assistance is provided only to Somali and AMISOM partners with 
regular oversight from U.S. Government or U.S. Government-funded 
contractor personnel. This consistent engagement, coupled with existing 
program coordinators resident in Mogadishu, and a program management 
team and dedicated monitoring and evaluation (M&E) effort based in 
Washington, DC, enables the access and oversight necessary for 
satisfactory M&E mechanisms.
    Due to the variety of assistance programming provided to AMISOM and 
Somali partners in Somalia, numerous and diverse metrics are utilized 
to evaluate progress towards achieving U.S. goals in Somalia. These 
metrics range from basic items like the timely delivery of food and 
fuel rations or the number of operations conducted, to more 
sophisticated measurements related to evaluating staff dynamics within 
AMISOM Force Headquarters or the Somali Ministry of Defense.

    Question 5. Is the clan make-up of the Somali National Army and 
Somali National Police sufficiently inclusive that it is viewed as 
legitimate by most of Somalia's major clan communities? If not, how 
will you adjust U.S. assistance and engagement with the Somali 
government to better ensure more legitimate Somali security 
institutions are ready to take over security responsibilities when 
AMISOM forces drawdown?

    Answer. The clan make-up of the Somali National Army (SNA) and 
Somali Police Force (SPF) is representative of the regions in which the 
SNA and SPF operate. The United States has initiated several changes in 
the provision of assistance, notably in 2016 and 2017, to target units 
in which we have greater confidence to effectively operate in specific 
geographic areas and to be viewed as legitimate by major clans in those 
areas. Mission Somalia consistently engages with the Federal Government 
of Somalia and Federal Member States to emphasize the importance of 
investing in units that are clan appropriate for the regions in which 
they operate. This approach is consistent with U.S. policy to support 
Somali security institutions as they incrementally assume security 
responsibilities from AMISOM.



                               __________

                              NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:08 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Johnny Isakson, 
presiding.
    Present: Senators Isakson [presiding], Gardner, Young, 
Shaheen, Coons, and Booker.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. This committee hearing will come to order.
    Good afternoon. Welcome. We are glad to have you here 
today. We have good business today. We have three witnesses 
testifying before us, all three great citizens of our country 
dedicated to the betterment of the United States of America and 
her citizens. We have Ms. Bonnie Glick, Michael Harvey, and 
Mark Montgomery.
    USAID is without a doubt where America leaves its brightest 
spot and its mark all over the world. In the 14 years that I 
have been in the Senate and the 6 years I served in the House, 
my most memorable trips and experiences were in Africa and many 
other places around the world where the reach of USAID reached 
not only the health of people but their heart. President Bush's 
program of PEPFAR, continued by President Obama and now 
continued as well, has proven to be we have taken a disease 
that we thought might wrack out all of mankind to where we have 
got it on the run, reducing. And God willing, if the creek 
don't rise, if we all live long enough, we will get to the 
point where AIDS is a memory and not a problem to deal with in 
the future.
    This does not happen because we are lucky. It does not 
happen because we are smart. It happens because we are 
committed and we care. The United States is a caring nation.
    I also am one that believes that foreign assistance makes a 
lot of sense, not just in the gift of money or investment of 
money, but in knowledge and skills. And while we are criticized 
sometimes in Congress for our foreign relations budget and 
overseas budget, foreign aid is less than 1 percent of the 
United States appropriation. Yet, that less than 1 percent 
investment probably brings us 80 to 90 percent of the good will 
we have around the world and continues to solidify it. And we 
need to remember that.
    If we are not getting our money's worth, we need to have 
the guts to force those who are not giving it to us to look at 
what they are doing and maybe help join us in what we are 
trying to do to help their people. But to threaten people by 
getting away from giving aid and help is just not the right way 
for our country to go. And I know the chairman of the committee 
and the ranking member and I know the ranking member here today 
feel the same way as I do.
    I have long believed that our diplomatic and developmental 
effort to keep us from having our defense capabilities are very 
important. I have confidence in Administrator Mark Green to 
further the national interests by working with developing 
countries to achieve self-reliance. Just what he did as an 
ambassador alone in Tanzania is evidence of what one person can 
do with the right help, the right support, and the right 
commitment.
    So we are glad that you all are here today, and I am 
pleased to turn it over to the ranking member for any opening 
remarks she might have.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you, Mr. Chairman.
    And congratulations to each of our nominees today. I look 
forward to hearing your testimony.
    As I think you all know, the Senate has worked consistently 
to restore appropriate levels of foreign assistance to ensure 
that the professionals at the Department of State and USAID 
have the tools they need to adequately and effectively do their 
jobs.
    And in this regard, I am really interested in hearing from 
our nominees about some of the more challenging issues that 
have been taken by this administration to revoke assistance to 
countries in conflict-ridden regions like Syria. In particular, 
I have just returned from Syria this summer. I was in northeast 
Syria. And I am concerned by the decision to revoke the 
stabilization funds for that region.
    I am also interested to hear about your positions on global 
health, on girls' education and gender equality. I know that 
each of you have professional experiences dealing with those 
issues, and so I am interested in hearing your thoughts about 
that.
    And, of course, I want to hear about how USAID can continue 
its role as the leading global development agency even as its 
internal reform process continues.
    So, again, I thank you all for being here, for your 
willingness to consider taking on these challenging positions 
at this difficult time in the world. Thank you.
    Senator Isakson. With that said, I am pleased to welcome 
our nominees today, first, Ms. Bonnie Glick of Maryland to be 
Deputy Administrator of the United States Agency for 
International Development; Mr. Michael T. Harvey of Texas to be 
Assistant Administrator of the United States Agency for 
International Development in the Middle East; and third, Mr. 
Mark Montgomery of Virginia to an Assistant Administrator of 
the United States Agency for International Development, 
Democracy, Conflict, and Humanitarian Assistance.
    We will start with you, Mr. Montgomery, and move down the 
table. Welcome.
    Let me do one other thing. Will you please be sure and 
introduce your family members and let us, on behalf of the 
whole committee, say to all of you how much we appreciate the 
sacrifice they make to make your service possible for what we 
do. I am sorry I did not say that right off the bat.
    Mr. Montgomery?

 STATEMENT OF MARK MONTGOMERY, OF VIRGINIA, TO BE AN ASSISTANT 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
 DEVELOPMENT, DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE

    Mr. Montgomery. Chairman Isakson, Ranking Member Shaheen, 
and distinguished members of the committee, I am honored to 
appear before you today as the nominee for Assistant Secretary 
for the Bureau of Democracy, Conflict, and Humanitarian 
Assistance at the United States Agency for International 
Development.
    I am grateful to the President and Secretary Pompeo and 
especially Administrator Green for the trust they have in my 
leadership of a bureau so central to the United States' foreign 
policy objectives. And if confirmed, I will continue to work to 
support the country's national security and the 
administration's agenda.
    I want to thank my wife Lucinda, who is a Navy veteran 
herself, my son Jack and my daughter Claire, who are all here 
with me today. They have been a family dedicated to service and 
country sacrificing their needs and desires to support my 
lengthy U.S. Navy career. We all know that no group sacrifices 
more for our military service members than our families, and I 
am incredibly grateful to all three of these for their 
continued love and support.
    I also want to recognize the service of the dedicated USAID 
staff who have led the DCHA Bureau for the past 18 months, most 
recently Rear Admiral Tim Ziemer. Their collective leadership 
has been invaluable as USAID has responded to crises across the 
globe from Yemen to Venezuela.
    When I decided to retire from the Navy after more than 32 
years of active duty, I knew I wanted to continue to serve our 
country specifically in a role that emphasized our exceptional 
American values and our commitment to democracy and 
humanitarian assistance. Before working on that, however, I had 
given my word to Senator John McCain that I would work first at 
the Senate Armed Services Committee on his staff. I shared his 
zeal for oversight on national security issues and his desire 
to tackle a number of Department of Defense reforms. As you all 
know, the Congress has recently completed the fiscal year 2019 
NDAA, which bears Senator McCain's name, and I am now excited 
to return to my personal goal of working on democracy and 
development issues, if confirmed.
    I am particularly proud to be nominated to lead USAID's 
DCHA Bureau. As Administrator Mark Green has said, ensuring 
democratic foundations is critical to USAID's work around the 
world and it is pivotal for the developing state's journey to 
self-reliance. I got to see this firsthand when I worked at 
U.S. European Command and worked with the State Department and 
USAID country teams. I supported the democracy and 
stabilization efforts in the Balkans and Caucasus. This 
assignment taught me the valuable role that the U.S. Government 
has in building stable, resilient democracies and how this work 
contributes to the stable international order that the United 
States both supports on and relies on.
    During my naval career, I also had the privilege to work 
with USAID during the response to numerous natural disasters. 
There is no more powerful symbol of America abroad than a USAID 
disaster assistance response team heading into the heart of an 
emergency. When Typhoon Haiyan hit the Philippines in 2013, the 
carrier strike group I commanded led the response on the part 
of the U.S. Navy. But I worked side by side with and, in fact, 
I worked for the USAID DART team. Throughout our interactions, 
I saw the incredible value that USAID's expeditionary teams 
bring to disaster response. DCHA brought speed, expertise, 
resources, and the spirit of the American people to a disaster 
that threatened tens of thousands of Filipino lives.
    Taken together, the nine offices at DCHA provide rapid and 
effective assistance to those suffering. They provide a faster 
and more durable recovery, and they help shore up democracy and 
governance as the most critical means of preventing further 
conflict and lessening the devastation of natural disasters.
    If confirmed, I look forward to working closely with 
Congress, working closely with the interagency, and with the 
international community on three key areas.
    The first is to enhance the coherence of the U.S. 
Government's response to conflict by improving our ability to 
identify fragile states and provide corrective actions upstream 
before a problem metastasizes.
    The second is emphasizing USAID's efforts to tackle food 
and humanitarian assistance as prevention and deterrence 
challenges, while continuing the agency's significant response 
efforts.
    And the third is strengthening and elevating the U.S. 
Government's humanitarian voice, both by highlighting the 
leadership role of the United States and by encouraging 
consistent participation by key allies and partners.
    Now finally, Senator McCain often reminded us that the 
United States is a great and powerful country. And with that 
great power comes a blessing, and that blessing incurs a 
responsibility and a sacrifice. I am honored to be considered 
for this position and am humbled by the responsibilities it 
entails.
    I thank you again and look forward to your questions.
    [Mr. Montgomery's prepared statement follows:]


                 Prepared Statement of Mark Montgomery

    Chairman Isakson, Ranking Member Shaheen, and distinguished members 
of the committee, I am honored to appear before you today as the 
nominee for Assistant Administrator for the Bureau for Democracy, 
Conflict, and Humanitarian Assistance (DCHA) at the United States 
Agency for International Development (USAID). I am grateful for the 
trust and confidence President Trump, Secretary Pompeo, and 
Administrator Green have in my leadership for a Bureau so central to 
the United States' humanitarian, development, democracy and foreign 
policy objectives. If confirmed, I will continue to work to support the 
country's national security and the administration's agenda.
    I also want to thank the Members of the Foreign Relations committee 
for your strong support of foreign assistance. I would also like to 
recognize the service of the extremely dedicated USAID staff who have 
led the DCHA Bureau superbly over the last 18 months, most recently 
Rear Admiral Tim Ziemer. Their leadership has been invaluable as USAID 
has responded to the threat of famines in South Sudan and Nigeria; the 
ongoing Rohingya crisis; and the humanitarian disasters in Yemen, 
Syria, and Venezuela.
    My thanks also to my family, friends, and colleagues who have 
provided me unfailing support and encouragement over the years, and for 
those who are able to be here today. I especially want to thank my wife 
Lucinda, my son Jack, and my daughter Claire. They have been a family 
dedicated to service and country, sacrificing their needs and desires 
to support my lengthy United States Navy career. No group sacrifices 
more for our military service members than our families, and I am 
incredibly grateful for their continued love and support.
    When I decided to retire from the Navy after more than 32 years of 
active duty, I knew I wanted to continue to serve our country and I 
specifically wanted to work in a role that emphasized our exceptional 
American values and commitment to democracy and humanitarian 
assistance. Only one thing stood in my path, and that was Senator John 
McCain, who had asked me to come work on his Senate Armed Services 
committee (SASC) Staff. I shared his zeal for oversight on national 
security issues, and we had a number of common challenges we wanted to 
work on within our national security programs. As you know, we have 
recently completed the Fiscal Year 2019 National Defense Authorization 
Act, which bears the Senator's name, and I am excited to return to my 
goal of working on democracy and development issues, if confirmed.
    I am particularly honored to be nominated to lead the DCHA Bureau. 
I previously had the opportunity to see USAID's work with democracy and 
governance in my first flag officer tour at U.S. European Command, 
where I led the Combatant Command's political-military programs in the 
Baltics, Balkans and Caucasus. In this assignment, I worked closely 
with the State Department and USAID country teams, and I was able to 
observe, and support, the positive progress of U.S. democracy and 
stabilization efforts in these nascent and transitioning democracies. 
This assignment taught me the valuable role that the U.S. Government, 
and, more specifically, USAID, has in building stable, resilient 
democracies, and how the development of these democracies contributes 
to the stable international order the United States both supports and 
relies on.
    DCHA's Center of Excellence on Democracy, Human Rights and 
Governance helps nations build effective institutions and robust civil 
societies so they have better potential to provide security and 
justice, economic opportunity, and political freedom for their people. 
As Administrator Green has said, the crises we see today so often 
reflect a lack of democratic foundations, effective governing 
institutions, and respect for human rights. Ensuring democratic 
foundations is critical to the work USAID does around the world, and is 
pivotal for the journey to self-reliance.
    During my career as a nuclear trained surface warfare officer in 
the United States Navy, I had the privilege to work with USAID during 
the responses to numerous disasters. DCHA's responsibilities when 
disaster strikes are significant, as the U.S. Government's lead for 
humanitarian response through the Offices of U.S. Foreign Disaster 
Assistance (OFDA) and Food for Peace (FFP). Collectively, they 
responded to disasters in 53 countries around the world last year, to 
provide life-saving food, shelter, medical care, and other essential 
services.
    There is no more powerful and iconic symbol of America abroad than 
when USAID sends a Disaster Assistance Response Team (DART) into the 
heart of an emergency. I witnessed DCHA's capabilities up close during 
the U.S. response to Typhoon Haiyan in 2013 in the Philippines. At the 
time, I was serving as the Commander of the Carrier Task Force in the 
Western Pacific, embarked on the USS GEORGE WASHINGTON. I was 
immediately assigned as the Maritime Force Commander, and, in that 
role, led the response on the part of the U.S. Navy, working side by 
side with OFDA's DART to respond to the typhoon. The DART deployed even 
before the super typhoon made landfall, and, throughout our 
interactions, I saw the incredible value USAID's expeditionary teams 
bring to a disaster response. OFDA and FFP brought speed, expertise, 
resources, and the spirit of the American people to a disaster that 
threatened tens of thousands of Filipino lives.
    Additionally, as the Director of Operations at U.S. Pacific Command 
from 2014-2017, I worked with the DCHA Bureau again in USAID's response 
to the Nepal earthquake in 2015. I helped organize and coordinate the 
extensive military airlift support to USAID as part of Operation 
Sayhayogi Haat, during which USAID deployed a DART to provide relief 
supplies and conduct search and rescue operations to find survivors.
    While at PACOM, I worked very closely with the humanitarian and 
civil-military advisors from DCHA's Office of Civil-Military 
Coordination embedded in the combatant command. These USAID staff 
provided expertise and support, helped two national security entities 
speak the same language, and brought their unique capabilities to bear 
on addressing the developmental and democracy challenges throughout 
South and South East Asia.
    DCHA also assists nations with the difficult task of post-crisis 
political and social transition, and works to address the root causes 
of instability before conflicts become humanitarian emergencies. The 
Office of Transition Initiatives, for instance, has programs in places 
such as Libya, Nigeria, Nicaragua, and Somalia, where its partners work 
with national and local leaders to provide basic services and give a 
voice to people in marginalized communities. The Conflict Management 
and Mitigation office assesses the prospects of conflict, and works 
with local and international organizations to reduce the risks of 
violence by supporting grassroots demands for peace. Teams from across 
DCHA continually analyze risk, whether of famine, mass atrocities, 
communicable disease, or flooding, to build resilience in our partner 
nations.
    The Office of American Schools and Hospitals Abroad (ASHA) program 
within DCHA directly supports some of the leading global education and 
health facilities, investments that contribute to U.S. public diplomacy 
efforts and foster strong civil society institutions and excellence in 
higher education and innovation.
    Taken together, the offices across the DCHA Bureau represent the 
core capabilities required to provide rapid and effective assistance to 
those suffering from disaster and conflict, to help foster a faster and 
more durable recovery and, importantly, to shore up democracy and 
governance as the most critical means of preventing further conflict 
and lessening the devastation of natural disaster.
    If confirmed, I look forward to working closely with Congress, the 
interagency, and the international community on three key areas.
    The first is enhancing the coherence of the U.S. Government's 
response to conflict, which includes: improving the administration's 
ability to identify fragile states and provide corrective, mitigating 
measures; institutionalizing the Stabilization Assistance Review with 
the Departments of Defense and State to leverage diplomatic 
engagements, defense, and foreign assistance effectively to stabilize 
conflict-affected areas; and further strengthening civil-military 
collaboration within Washington offices, the Combatant Commands and in 
the field.
    The second is emphasizing USAID's efforts to tackle food and 
humanitarian assistance as prevention and deterrence challenges, while 
continuing the Agency's significant response efforts. These efforts can 
improve resilience, reduce fragility and develop relationships.
    The third is strengthening and elevating the U.S. Government's 
humanitarian voice, both highlighting the leadership role of the United 
States, and by encouraging consistent participation by key allies and 
partners in this global effort.
    I would like to briefly mention the proposed USAID Transformation, 
which I have discussed with Administrator Green and others at USAID. 
The Transformation would change the DCHA Bureau, particularly through 
the proposed creation of the Bureaus for Humanitarian Assistance and 
Conflict-Prevention and Stabilization. Both proposed Bureaus would 
oversee USAID functions that currently fall under DCHA, so, if 
confirmed, my role as Assistant Administrator would also change, 
pending approval of the reorganization.
    The intent of the proposed structure is to further strengthen 
USAID's efficient and holistic approach to programming across the 
spectrum of disaster preparedness, response, mitigation and prevention. 
The Agency also believes this would elevate USAID's voice with 
interagency colleagues on these issues. I look forward to learning more 
about and implementing the proposed changes as Congress approves them. 
I believe they will help ensure USAID remains the world's premier 
international development Agency, and continues the important work it 
does to protect America's future security and prosperity.
    As Administrator Green has said, in a world as complex as ours, 
with our national security under greater threat than ever, we must 
bring to bear the entirety of our statecraft toolbox, including our 
most sophisticated development tools. Senator McCain often reminded us 
that the United States is a great and powerful country, and with that 
great blessing comes great responsibility. I can think of no more 
important place to carry out this responsibility then with the team of 
professionals at USAID.
    I am honored to be considered for this position, and humbled by the 
responsibilities it entails. If confirmed, I look forward to joining 
the ranks of the many dedicated and courageous men and women who are 
working around the world, the DCHA Bureau, and the rest of USAID. Thank 
you again for giving me the opportunity to appear before you today. I 
welcome any questions you might have.


    Senator Isakson. Thank you very much, Mr. Montgomery.
    Ms. Glick?

     STATEMENT OF BONNIE GLICK, OF MARYLAND, TO BE DEPUTY 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Glick. Senator Isakson, Senator Shaheen, members of the 
committee, I am honored to come before you today as President 
Trump's nominee to serve as Deputy Administrator of the United 
States Agency for International Development. I am grateful to 
President Trump and Administrator Green for their trust and 
confidence in me to serve in this important role.
    I want to thank my family members for their unwavering 
support. My parents, both proud first generation Americans, 
taught their four children the values of patriotism, the 
awareness of the role that our country plays on the global 
stage, and the understanding of the need to be loyal to friends 
and allies. My mother, Sherry Glick, is here today. My father, 
Jerry Glick, of blessed memory is watching me here from 
somewhere up above. I would also like to acknowledge my 
wonderful husband, Paul Foldi, and our sons, Matthew and 
Jonathan, who are here today.
    I began my career as a Foreign Service officer at an 
interesting time in foreign relations. The influence of the 
Soviet Union was waning, and former satellite countries were 
coming out from under Moscow's grip. The Iron Curtain was 
lifting. I served two tours of duty in former communist 
countries, Ethiopia and Nicaragua. For each tour, I was trained 
in the local language and culture prior to assuming my duties. 
While in Ethiopia, I saw two nations, Ethiopia and Eritrea, 
emerge from the brutal dictatorship and Red Terror of one of 
Africa's most notorious regimes. In Nicaragua, I saw a country 
trying to recover from civil war. It saddens me today to see 
that Nicaragua, which had taken so many steps forward, has now 
retreated into the old ways of brutal dictatorial power games 
once again under Daniel Ortega. By contrast, I am heartened to 
see that Ethiopia and Eritrea have taken important steps to 
ensuring a lasting peace and look forward, if confirmed, to 
visiting the Horn of Africa and to promoting these efforts.
    Since August of last year, I have had the great privilege 
of serving as the Deputy Secretary of the Maryland Department 
of Aging, a cabinet agency. Like development, aging is not a 
partisan issue. We are all doing it. Through my work in the 
Department of Aging, I have been reintroduced, after many 
years' absence, to government service. I am reminded on a daily 
basis of the important mission I committed to as a granting 
agency, as a service agency, and as a senior leader in Governor 
Hogan's administration. I understand the importance of being a 
good steward of taxpayers' dollars, of providing high quality 
service options particularly to vulnerable populations, and to 
leading a large, professional highly capable team of people 
committed to serving Maryland's seniors.
    As Administrator Mark Green has said, the mission of USAID 
ultimately is to end the need for foreign assistance. Should I 
be confirmed, it will be my role to assist him and the 
exceptional women and men of USAID in achieving this goal.
    If confirmed, I will ensure the agency maintains its focus 
on the promotion of democratic values and free elections, among 
the key pillars of our development work. Democracy and 
America's democratic values underpin all of the work done in 
USAID. The role of democracy and good governance cannot be 
underestimated when considering countries on the journey to 
self-reliance, countries that will one day be our partners in 
development projects around the world.
    If confirmed, I will pursue efforts already underway to 
reform USAID's offices and procedures. If I learned nothing 
else from my 12 years at IBM, I learned that there is always 
room for improvement even when something is technically 
perfect. What I also learned from IBM is that the private 
sector has an important role to play in the development space. 
I look forward to the opportunity to work with partners in the 
private sector, the nonprofit sector, and across academia to 
come up with new and more innovative ways to stretch everyone's 
investments further in ways that are mutually beneficial to 
all.
    If confirmed, it will be a tremendous honor to serve my 
country again, this time as the Deputy Administrator of USAID. 
I know too that I will be humbled every day by the incredible 
work done by development and humanitarian assistance 
professionals in all parts of the globe. Their dedication to 
helping others, usually complete strangers on those strangers' 
journeys to self-reliance, is truly inspiring work, and it 
would my privilege to participate in USAID's efforts to reach 
those in crisis and to help those striving for a better life.
    Many years ago, I caught the bug for international service. 
It carried me to the Soviet Union, to East Africa, to Latin 
America, to Asia, to Europe, and now to this table before all 
of you today. Senators, nearly 30 years later, my commitment to 
make a difference through the power of American values, 
American compassion, and American skills is stronger than ever 
before. If confirmed, I will work with Administrator Green to 
lead a world-class team to do life-changing work in 
environments that are often terribly hard. I commit to working 
with you and your staffs, with your counterparts in the House, 
and with the others in the interagency to achieve our goals as 
a nation.
    Thank you very much, and I look forward to your questions.
    [Ms. Glick's prepared statement follows:]


                Prepared Statement of Bonnie Laura Glick

    Senator Isakson, Senator Shaheen, members of the committee, I am 
honored to come before you today as President Trump's nominee to serve 
as Deputy Administrator of the U.S. Agency for International 
Development (USAID). I'm grateful to President Trump and Administrator 
Green for their trust and confidence in me to serve in this important 
role.
    During my consultations in preparation for this hearing, I had the 
pleasure and honor to meet with countless USAID employees who provided 
me with briefings and papers that detailed their work. To those 
dedicated Foreign Service, Civil Service, and contract employees, thank 
you for your counsel and guidance. Thank you for your commitment to 
making USAID the world's flagship development agency that promotes 
democracy and human rights, and delivers humanitarian assistance and 
development aid to friends, to allies, and to people who are eager to 
see change in the world.
    I also want to express my personal gratitude to David Moore, who 
has done an outstanding job in the role of Acting Deputy these last 
months.
    I want to thank my family for their unwavering support. My parents, 
both proud first-generation Americans, raised their four children with 
values of patriotism, with awareness of the role our country plays on 
the global stage, and with a sense of abiding loyalty to friends and 
allies. My mother, Sherry Glick, is here today, and my father, Jerry 
Glick, is watching me here from somewhere up above. I would also like 
to acknowledge my wonderful husband, Paul Foldi, and our sons, Matthew 
and Jonathan, who are here today.
    I began my career at an interesting time in foreign relations. The 
influence of the Soviet Union was waning, and former satellite 
countries were coming out from under Moscow's grip. The Iron Curtain 
was lifting. As a State Department Foreign Service Officer, I served 
two tours of duty in Ethiopia and Nicaragua. For each tour, I was 
trained in the local language and culture prior to assuming my duties. 
While in Ethiopia, I saw two nations, Ethiopia and Eritrea, emerge from 
the brutal dictatorship and Red Terror of one of Africa's most 
notorious regimes. In Nicaragua, I saw a country trying to recover from 
civil war. Thousands of Nicaraguans who had fled the country when the 
brutal Sandinista regime took over were choosing to return to their 
homes under the leadership of Violeta Chamorro, only to find the 
Sandinistas had confiscated their properties. It saddens me today to 
see that Nicaragua, which had taken steps forward, which was growing 
economically and whose citizens were contributing meaningfully, has 
returned to a brutal, dictatorial regime. By contrast, I'm heartened to 
see that Ethiopia and Eritrea have taken important steps toward 
ensuring a lasting peace, and I look forward, if confirmed, to visiting 
the Horn of Africa and to promoting these efforts.
    Since August 2017, I have had the great privilege of serving as the 
Deputy Secretary of the Maryland Department of Aging, a Cabinet agency. 
Like development, aging is not a partisan issue. We're all doing it. 
Through my work in the Department of Aging, I have been reintroduced, 
after an absence of many years, to government service. It has been an 
honor to serve the older adult population of my State, many of whom are 
my friends and relatives. I am reminded on a daily basis of the 
important mission to which I am committed, as a leader of a granting 
agency, as an advocate for an important service agency, and as a senior 
leader in Governor Hogan's administration. I understand the importance 
of being a good steward of taxpayers' dollars, of providing high 
quality service options and tracking their impact on people's lives, 
particularly for vulnerable populations; and of leading a large, 
professional, highly-capable team of people committed to serving 
Maryland's seniors. It's an honor to have been asked to serve in this 
role.
    Throughout my travels over the past nearly 30 years, a common theme 
was evident--a desire of proud peoples, no matter where they live, to 
be self-reliant, to raise children into lives that were better than 
their own, and to live in peace with their neighbors.
    Mr. Chairman and members of the committee, as Administrator Mark 
Green has said, the goal of USAID ultimately is to end the need for 
foreign assistance.
    Should I be confirmed, it will be my role to assist him and the 
exceptional women and men of USAID in achieving this goal. USAID 
currently works in over 100 countries to provide humanitarian 
assistance, development skills, and capacity-building in all facets of 
society including health, education, democracy, economic growth, food 
security, and nutrition--to name but a few of the sectors in which the 
Agency works.
    As Deputy Administrator, I will be charged with overseeing several 
key pieces of USAID programming, including all of USAID's regional 
programming, Global Health programs, and pending Congressional 
approval, the Bureau for Development, Democracy, and Innovation (DDI), 
which is proposed as part of USAID's redesign. I am particularly 
pleased that I will oversee USAID's democracy programming, as I believe 
that democracy and good governance are the underpinnings of USAID's 
work around the world. Without democratic governance, no country will 
be able to succeed on its journey to self-reliance.
    If confirmed, I will ensure the Agency maintains its focus on the 
promotion of democratic values and free elections, one of the key 
pillars of our development work. The role of democracy and citizen-
responsive governance cannot be underestimated when considering 
countries on the journey to self-reliance--countries that will one day 
be our partners in development projects around the world.
    Most Americans view USAID as our nation's premier ``first-
responder'' for those overseas suffering from disasters--both natural 
and man-made. Today, USAID is helping to care for Venezuelans who are 
fleeing chaos and dictatorship and finding safe haven in Colombia, 
Ecuador, Peru, Brazil, and even the Caribbean. USAID is also supporting 
oppressed Rohingya in Burma and those who have fled across the border 
into Bangladesh. As Administrator Green emphasized on his trip to Burma 
and Bangladesh earlier this year, the U.S Government continues to 
pressure the Burmese civilian Government and the military to end the 
violence against the Rohingya and other ethnic groups, and calls on all 
parties to allow unfettered humanitarian access to, and freedom of 
movement for, all communities in need.
    Of course, refugee crises cannot be solved without addressing their 
underlying causes--failed, usually brutal, leadership in the countries 
from which refugees are forced to flee. America is a country that, from 
its very origins, was formed by people fleeing oppression. My ancestors 
fled from pogroms in Eastern Europe. My in-laws fled from the Soviets 
as the Red Army laid claim to lands in its so-called sphere of 
influence after World War II. My children are a mix of generations 
borne out of fear, oppression, and then new generations borne out of 
freedom. As American leaders, it is our duty to help others who are 
fearful of, and oppressed by, their own or hostile neighboring, 
governments, and it is the work of USAID to help foster the conditions 
for democratic rule to enable good governance to flourish.
    Regrettably, there are parts of the world where people are 
struggling every day to survive. They are victims of wars, of human 
trafficking, of sexual violence in camps for refugee or internally 
displaced persons, of famine, of outbreaks of disease, and countless 
other privations. USAID is the largest humanitarian assistance 
organization in the world, and its ability to respond to crises, 
wherever they occur, is a testament to the men and women in the 
Agency's ranks, as well as to the American spirit of generosity and 
good will. If confirmed, it will be humbling to serve with people who 
walk in God's path every day and serve those who cannot care for 
themselves. Who bring them up, and who, in the process, put them on a 
journey to self-reliance.
    I had the good fortune of working for many years in IBM's storied 
Research Division. Working with some of the smartest and most 
accomplished scientists on earth, from all over the world, we developed 
solutions to create a ``smarter planet.'' The Smarter Planet envisioned 
by IBM is not unlike the vision we all have for a smarter, more 
sustainable earth with smart water use, smart energy, smart cities, 
smart agriculture, smart utilities, and on and on.
    I share Administrator Green's unwavering commitment to end the need 
for foreign assistance, which I believe requires the United States to 
lead and engage in the world. If confirmed, I look forward to joining 
the USAID team worldwide to help lead others onto this path to self-
reliance, which will move more countries from recipients of aid to 
donors.
    When USAID's mission is achieved, it will deliver a world that is 
NOT one in which nations are without problems, but it will be one in 
which nations can determine their own course, in which they can marshal 
the resources necessary to be successful, and from which they can 
demonstrate to the rest of the world their resilience. I look forward 
to that day.
    If confirmed, I commit to doing my utmost, every day, to make sure 
that we are good stewards of the U.S. taxpayers' dollars. I know how 
hard my fellow Americans work, how sometimes they make sacrifices just 
to get by, let alone to thrive.
    If confirmed, and working with you, I will pursue efforts already 
underway to reform USAID's offices and procedures. If I learned nothing 
else from IBM, I learned there is always room for improvement, even 
when something is technically perfect. What I also learned from IBM is 
that the private sector has an important role to play in development. 
The private sector is a critical partner, and will have a seat at the 
table alongside all other actors in the development space. Having 
worked across public, private, and non-profit sectors, I speak the 
language of each one, and believe I might be uniquely qualified to help 
USAID further its relationship with each of them. I look forward to the 
opportunity to work with partners in the private sector, the non-profit 
sector, and across academia to come up with new and more innovative 
ways to stretch everyone's investments further, in ways that are 
mutually beneficial to all.
    If confirmed, it will be a tremendous honor to serve my country 
again, this time as the Deputy Administrator of the United States 
Agency for International Development. I know, too, that I will be 
humbled every day by the incredible work done by development and 
humanitarian assistance professionals all around the globe. Their 
dedication to helping others, usually complete strangers, on those 
strangers' journeys to self-reliance is truly God's work here on earth, 
and it would be my privilege and blessing to participate in USAID's 
efforts to reach those in crisis, and to help those who are striving 
for a better life.
    Many years ago I ``caught the bug'' for international service. It 
carried me to East Africa, to Latin America, to Asia, to Europe, and 
now to this table before all of you today. Mr. Chairman, Ranking 
Member, and members of the committee, nearly 30 years later, my 
commitment to make a difference, through the power of American values, 
American compassion, and American skills is stronger than ever before. 
I know that this will not be an easy job. Indeed, if I ever wake in the 
morning to say that there's nothing left to do, I will know that my job 
is done. We're not there yet. If confirmed, I will work with 
Administrator Green to lead a world-class team to do life-changing work 
in environments that are often terribly hard. USAID does not sit back 
and rest on its laurels, nor should those who lead the Agency. I commit 
to working with you, with your counterparts in the House, and with the 
State Department, Defense Department, and others in the inter-agency to 
achieve our goals as a nation.
    Thank you very much. I look forward to your questions.


    Senator Isakson. Thank you, Ms. Glick.
    Mr. Harvey, before you speak, I would like Mr. Cory Gardner 
to have a few words to say about you.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you to all of the nominees for your willingness 
to serve our public.
    Mr. Harvey, this is a little bit of an audible. I just 
wanted to thank you for your service and, of course, the work 
we do through international development is incredibly 
important. We have a bill coming up tomorrow afternoon that we 
will work on our presence and development work in Asia.
    But the real reason I wanted to say something is the 
gentleman over your right shoulder. And I question whether or 
not we should confirm you based on your brother. His brother is 
a Senator from Colorado, a State legislator who I served with 
for a number of years, and I just wanted to welcome the Harvey 
family. What an honor it is to have you here and your public 
service. And to brother Ted, we will not hold that against you.
    Thank you. [Laughter.]
    Mr. Harvey. Thank you very much, Senator.
    Senator Isakson. The floor is yours.

 STATEMENT OF MICHAEL T. HARVEY, OF TEXAS, TO BE AN ASSISTANT 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
                    DEVELOPMENT, MIDDLE EAST

    Mr. Harvey. Thank you, Mr. Chairman, and thank you for that 
allowance.
    Senator Isakson, Senator Shaheen, and other distinguished 
members of the committee, I am honored to come before you today 
as the President's nominee to be the Assistant Administrator 
for the Middle East at the U.S. Agency for International 
Development. And like my colleagues, I am extremely grateful 
for the confidence that President Trump, Secretary Pompeo, and 
Administrator Green have placed on me.
    As I begin my remarks, I would like to recognize the 
outstanding leadership of Hal Ferguson and Maria Longi, who 
have headed USAID's Middle East Bureau for the past 2 years. 
Maria's knowledge and dedication, acquired over a long and 
distinguished career with the U.S. Government, really reflects 
the best qualities of the Career Senior Executive Service in 
our government. And Hal, with his service at the International 
Republican Institute, where he led the Middle East programs, 
enabled him to step right into the role at USAID, and I look 
forward to working with him if I am confirmed.
    I would especially like to thank my family, including Ted, 
and friends and professional colleagues who have supported and 
encouraged me to pursue this opportunity. In particular, I 
would like to recognize my wife Laura, who is here with us 
today, and then my kids, Ellen, Hannah, and Jack, who could not 
be here. They know the importance of public service, and I am 
here with their full support.
    We are a Foreign Service family. And like thousands of 
other families who represent America in some tough places 
around the world, we have had an unusual life. Our decades 
abroad have given us tremendous respect for the men and women 
who serve our country abroad, including the kids who serve our 
country abroad. If confirmed, I will bring that experience, as 
well as over 30 years of professional expertise, to this job.
    And I am particularly grateful to have the opportunity to 
be working in the Middle East again. It is a part of the world 
that has had great significance for me and my family, having 
served in the region throughout my career. It has played a 
significant role in our children's upbringing. It was a joy to 
watch our oldest daughter graduate from high school at the 
Roman amphitheatre in Jerash in Jordan, and then to hear our 
son sing Ha Tikva when he graduated from high school in Israel.
    During my career, I have seen significant changes at USAID, 
especially since September 11th. I am proud that we are a much 
stronger, smarter, and more flexible agency than when I joined. 
Our role in foreign affairs and national security has evolved 
dramatically. We have a much closer and more integrated working 
relationship with our interagency colleagues. We have emerged 
as thought leaders and the drivers of fragility in the 
countries where we work, and we have accumulated a deep 
understanding of what drives extremism and social division. 
This knowledge has enabled us to be much more helpful to our 
colleagues across the U.S. Government as we collectively 
grapple with the challenges across the globe, especially in the 
Middle East. If confirmed, I look forward to further 
strengthening these important capacities and these 
relationships.
    The complex humanitarian and development and political 
situation in the Middle East and North Africa presents us both 
challenges and opportunities. USAID can help the people of the 
region meet these challenges. The Middle East Bureau is 
responding to immediate crises in the region while building on 
the positive trends that do exist and laying the foundations 
for future U.S. Government engagements beyond the U.S. 
assistance programs.
    While the Middle East poses many challenges, it also 
presents enormous opportunities to showcase what can be done 
and what has been done through the generosity and commitment of 
the American people. The people of these countries are ready 
for constructive change, to engage with the global community in 
building a prosperous, peaceful future, a future consistent 
with their own culture and history. The United States can 
easily come up alongside to support these aspirations. If 
confirmed, I commit to partnering with the people of the Middle 
East and North Africa to help them on that journey to self-
reliance.
    Senator Isakson, Senator Shaheen, and other distinguished 
members, I am honored that I am sitting here at this desk with 
my colleagues, and I thank you for the opportunity to be here. 
I look forward to answering your questions.
    [Mr. Harvey's prepared statement follows:]


                Prepared Statement of Michael T. Harvey

    Senator Isakson, Senator Shaheen, and distinguished Members of the 
committee, I am honored to come before you today as the President's 
nominee for Assistant Administrator of the Middle East Bureau at the 
United States Agency for International Development (USAID). It is a 
privilege to appear before this committee, and I am grateful for the 
confidence President Trump, Secretary Pompeo, and Administrator Green 
have placed in me.
    As I begin my remarks, I would like to recognize the outstanding 
leadership of Hal Ferguson and Maria Longi, who have headed USAID's 
Middle East Bureau for the past two years. Maria's knowledge and 
dedication, acquired during a distinguished career across the U.S. 
Government, reflect the best qualities of the Career Senior Executive 
Service. Hal's experience at the International Republican Institute and 
his background in the Middle East enabled him to step right into his 
new role at USAID, and I look forward to working with him if confirmed.
    I would especially like to thank my family, friends and 
professional colleagues who have supported and encouraged me to pursue 
this opportunity. In particular, I would like to recognize my wife, 
Laura, and our three children, Ellen, Hannah and Jack. They all know 
the importance of public service, and I am here today with their full 
support.
    We are a Foreign Service family. Like thousands of other families 
who represent America in some of the toughest places on earth, we have 
had an unusual life. Our decades abroad have given us tremendous 
respect for the men and women--and kids--who serve USAID and the U.S. 
Government overseas and in Washington.
    If confirmed, I will bring the experience I have gained over 30 
years with USAID, including by leading the Agency's Task Force to 
Defeat the Islamic State in Iraq and Syria (ISIS), and by serving as 
USAID Mission Director in Nigeria, West Bank and Gaza, and Serbia and 
Montenegro; and by working as Deputy Mission Director in Iraq and 
Jordan.
    I am particularly grateful to have the opportunity to once again be 
working in the Middle East-- a part of the world that has great 
significance for me and my family. Laura and I have embraced the 
culture of the Middle East, and the region has played a significant 
role in our children's upbringing. It was a joy to watch my oldest 
daughter's high school graduation at the Roman amphitheatre in Jerash, 
in Jordan; and we were extremely proud to hear our son sing Ha Tikva at 
his high school graduation in Israel.
    During my career, I have seen significant changes at USAID, 
especially since September 11, 2001. I am proud that we are a much 
stronger, smarter and more flexible organization. Our role in foreign 
affairs and national security has evolved dramatically. We have a much 
closer, more integrated working relationship with our interagency 
colleagues, most importantly at the Department of State and the 
Department of Defense. We have emerged as thought leaders on the 
drivers of fragility in the countries where we work, and have 
accumulated a deep understanding of what drives extremism and social 
division. This knowledge has enabled us to be much more helpful to our 
interagency colleagues as we collectively grapple with challenges 
across the globe, especially in the Middle East. If confirmed, I look 
forward to further strengthening these important capacities and 
relationships.
    The complex political, humanitarian, and development situation in 
the Middle East and North Africa (MENA) presents both challenges and 
opportunities for USAID's work. USAID can help the people of the region 
meet their challenges. The Middle East Bureau is responding to 
immediate crises in the region, building on positive trends where they 
exist, and laying the foundation for future U.S. Government engagements 
beyond assistance programs. USAID's priorities for the MENA region 
include 1) supporting core U.S. national security objectives; 2) 
mitigating the human impact of ongoing conflicts; and, 3) fostering 
inclusive development and reform as opportunities arise. If confirmed, 
I look forward to leading that work.
    With the support of Congress, USAID's Middle East Bureau supports 
development and stabilization programming across the region. The U.S. 
Government also provides significant humanitarian assistance in much of 
the region, including in Syria, Iraq, Jordan and Yemen. If confirmed, I 
will provide strong oversight of USAID's programs in the Middle East, 
and ensure those programs respond to the needs and aspirations of the 
people in the region by facilitating inclusive economic growth, 
supporting democratic processes, strengthening civil society, and 
addressing other key challenges, such as helping religious and ethnic 
minorities across the region.
    The Middle East poses many challenges, both politically and 
developmentally, but it also presents enormous opportunities to 
showcase what has been done right through the generosity and commitment 
of the American people. Without being naive, I am optimistic about the 
broad direction of events in the Arab world. We know that the people 
who suffer the most from the violence in the Middle East and North 
Africa are the people of the region themselves. The people of these 
countries are ready for constructive change, to engage with the global 
community in building a prosperous, peaceful future, a future 
consistent with their culture and history. The United States can 
support those aspirations. If confirmed, I commit to partnering with 
the people of the Middle East and North Africa to help them on that 
journey to self-reliance.
    Senator Isakson, Senator Shaheen, and distinguished members of the 
committee, I am honored to be considered for the position of Assistant 
Administrator for the Bureau for the Middle East at USAID. Thank you 
for the opportunity to appear before you today. I look forward to 
answering your questions.


    Senator Isakson. Well, thank you very much. We appreciate 
all of you being here today. Glad to have you, Mr. Gardner. And 
glad to have your brother too, Mr. Harvey. Was he good to you 
when you were growing up?
    Mr. Ted Harvey: No. [Laughter.]
    Mr. Harvey. I am the older, Senator.
    Senator Isakson. I knew that was going to be the answer.
    We will start with a round of questions, and I will lead 
off with one.
    I want to thank Mr. Montgomery for his comments about John 
McCain. John's example is a great military leader of our 
country, a Member of the United States Senate, prisoner of war, 
a member of the United States Navy, decorated pilot. But John 
always believed in diplomacy. He believed everything he did 
with power was only made possible in the end by diplomacy that 
could make a peace lasting. And so your recognition of him and 
his philosophy as a military man and as a citizen and a servant 
in the Senate was really much appreciated by me, and I 
appreciate it very much. I just wanted to say that to you. 
Thank you very much.
    Ms. Glick, I am old. You served the old people of Maryland, 
and so do young people of USAID. Is that right?
    Ms. Glick. Yes. That is exactly right, Senator.
    Senator Isakson. How would you describe your job as Deputy 
Administrator of USAID?
    Ms. Glick. That is a great question. And when I was first 
asked if this was something that I would be interested in 
doing, I asked that same question. What is the job? And the 
answer then was anything that the Administrator does not want 
to do.
    But the truth of the matter is it is working with the 
talented women and men of USAID around the world doing a lot of 
the day-to-day operations of the agency to ensure that the 
Administrator is freed up often to be the public face of USAID 
but falling back into that category of when he is running 
around in one part of the world and another part of the world 
needs immediate attention, certainly that would be where I fall 
in.
    It is also part of running an agency that is spread around 
the world with something like 11,000 employees and staff and 
implementing partners and taking into account on a day-to-day 
basis their safety and security in operating environments that 
are often quite dangerous. It will be a combination of a lot of 
``all of the above,'' and I have a feeling that no one day will 
be like the last.
    Senator Isakson. You are going to be the one that gets 
delegated all the hard jobs.
    Ms. Glick. That could be, sir.
    Senator Isakson. Mark is a great leader.
    Ms. Glick. Yes, he is.
    Senator Isakson. He will be a great leader, and you will be 
a great person to help him out with that because, as I was 
listening to you talk, I was thinking when I read that you were 
going to be Deputy, I said I wonder what a deputy administrator 
is really going to do. But really what you are is vice 
president of USAID. You are the number two person to go set the 
table when the Administrator has to later come in.
    Ms. Glick. Right.
    Senator Isakson. That is a very important job. And I think 
your experience in Maryland and doing the job you did there 
will be a tremendous help to you in doing exactly that as far 
as USAID is concerned.
    Mr. Harvey, what do you see as the most important thing you 
need to know to be one who can resolve conflict in the world? 
That is part of your job.
    Mr. Harvey. It is in fact part of my job, Senator, and it 
is not a small matter.
    You know, having spent 30 years in one war zone after 
another, what has struck me is how important it is for us to 
understand the turf that we are on. I find too often we go in 
with either little understanding, a superficial understanding, 
or a highly misinformed understanding of where we are going, 
the lives that we are affecting, and the history that we are 
stepping into.
    I said in my remarks that we are a smarter agency, which 
does not make us necessarily always up to the task, but I think 
modesty has got to be just a core value in the agency when you 
are trying to affect somebody else's life. And if you do not 
start with that, making peace is awful hard.
    Senator Isakson. The Mahgreb I think is the term used to 
define North Africa--is it not--on the continent of Africa?
    Mr. Harvey. The west half of it, yes.
    Senator Isakson. The west half of it?
    Mr. Harvey. Yes.
    Senator Isakson. That part of the world is what the heart 
is to the human body. It is the heartbeat of what is going to 
happen in the future. Civilization pretty much began close to 
that area and developed in that area, and one day, the Bible 
teaches us, it is probably going to be decided in that area. 
And we all know from what has happened Osama bin Laden, with 
Daesh, with all the terrorist organizations we have had to deal 
with, the terrorism acts that have taken place, that that is 
going to be the hotbed for the immediate future, certainly for 
your lifetime and for mine.
    What do you think the United States has to do to get 
ourselves in the best position to be the leader of the solution 
for the Mahgreb and that part of the world on the issue of 
terrorism?
    Mr. Harvey. You know, we have been wrestling with this as a 
country and as a government now for almost 20 years. And it 
continues to be a tough, tough issue. But the thing that has 
struck me, as I have spent my time in that part of the world, 
is how broadly and deeply the people of that region want this 
chapter to close. And there are currents in every one of these 
societies that are pushing toward a future that is very 
consistent with what our vision would be of peace, of 
individual freedom even if it is expressed perhaps in a 
different cultural model than we would recognize here in the 
West. And when I see how we should be engaging with these 
societies, we need to come up alongside those folks who have 
the energy and the bravery and the vision that we share to push 
these very, very troubled countries and very, very troubled 
societies toward a future that they want that is consistent 
with our values because at the end of the day, there is much 
more that we agree with than what divides us.
    Senator Isakson. I agree with that. And I think most of the 
difference we have is because of religion. The differences of 
religion and the Muslim faith and some of the things that are 
going on in that part of the world are the heart of some of the 
difficulties we had. We saw that with Sunni and Shia in Iraq in 
the Iraq conflict. And if we can find a way to take our USAID 
efforts to bond with the people of the various countries, 
regardless of the religion that is the base in the country, but 
make us a part of that and their religion a part of what we try 
and serve, the better we will be able to reach those people and 
bring about peace in that area.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Montgomery, I want to echo Senator Isakson's comments 
about what you had to say about John McCain. We all miss him 
already, and I think the model of service that he set for 
everyone in the country is important for us to share with the 
next generation.
    And I think I would not be speaking out of John McCain's 
school of agreement if I did not say that I question your 
judgment for leaving Sunapee, New Hampshire to come down to 
Washington, D.C. I think John would probably question that as 
well. [Laughter.]
    Senator Shaheen. Mr. Montgomery is from New Hampshire, from 
a very beautiful part of New Hampshire, and we appreciate that 
you are willing to make the sacrifice to consider taking on 
this role.
    I want to ask you, because USAID is in the process of 
merging its key humanitarian offices into a single bureau, how 
you think we need to ensure a successful merger in doing that 
and what sort of challenges pose the greatest problem as you 
think about how that merger needs to happen.
    Mr. Montgomery. Thanks, ma'am, and thanks for the comments 
on Sunapee. My parents will be very happy.
    I have been briefed on the organizational change, and 
obviously, all three of us are very aware of it and it has been 
part of our preparation.
    What I would say is it was obvious to me that what the 
Administrator was looking for was improving the efficiency and 
the effectiveness of USAID as it expends the taxpayer dollar. 
And obviously, all of us can agree that is a good intent.
    I think for us what to look at is are we bringing together 
in that search for efficiency and effectiveness the elements of 
preparation or mitigation of a casualty--in other words, what 
we do ahead of time to try to prevent a fragile state from 
turning into a crisis state--with the portions of the agency 
that we are doing the response. If you do that, you can get a 
lot of the lessons learned. You can build a ligature between 
those two so that the sensing of the fragility breaking down 
into chaos is better seen and the investments are made to 
prevent that from happening. So I think whether you look at it 
in the democracy area, the humanitarian area, or the conflict 
prevention area, if we can improve the ligature between 
preventative efforts and then the eventual recovery efforts, we 
will improve the overall resilience of the states we support.
    So that is what I will be monitoring if in fact the 
notification is all approved and we begin to do elements of the 
reorganization. We will be monitoring to see if the efficiency 
and effectiveness of the agency are improving.
    If I could comment on one other thing. I think it makes it 
easier for outside organizations to reach in to us if we are 
able to organize ourselves in a more efficient way where the 
different elements of food security or hygiene and water or 
democracy or conflict resolution are housed together. If we can 
make it easier, whether it is inside the interagency or whether 
it is with international partners or allies, to make it easier 
to reach into, we will make our organization inherently more 
efficient.
    Senator Shaheen. That certainly makes sense to me. I guess 
my question is, what do you think the biggest challenges are in 
doing that? Where are we going to run into difficulties, and 
how do we get past those difficulties?
    Mr. Montgomery. Being inside DOD, I got to experience a 
reorganization every year or so. And I think the biggest 
problem thing that I have seen----
    Senator Shaheen. Senator Kaine and I appreciate that 
because we sit on the Armed Services committee.
    Mr. Montgomery. Yes, ma'am. And so I would say the biggest 
challenges were people protecting rice bowls, people having a 
presumption of responsibility not necessarily understanding the 
administrator's overarching vision.
    I will say, having now been briefed extensively inside AID, 
the mix of professionals there of civil servants, Foreign 
Service, and the contractor personnel--absolutely, it is a flat 
organization, and it is an organization that experiences 
turbulence in the field routinely. As a result, I found them 
fairly shock-hardened, and I do not think we will have that 
challenge of I have got my rice bowl here, they have done 
enough movement, had enough instability in their job 
assignments when they were overseas, that when they are back in 
Washington I do not think that will be an issue. But it is 
certainly something to monitor, and I will work with the Deputy 
Administrator, if confirmed and if she is confirmed, to ensure 
that we achieve that level of efficiency.
    Senator Shaheen. Thank you.
    Ms. Glick, as we discussed earlier today in my office--and 
I appreciated your taking time to do that--I think one of the 
values that we should be very proud of in the United States and 
with the work of the State Department and USAID has been the 
emphasis on gender equality, the importance of women 
empowerment. It has been a core development issue. And we have 
seen that USAID has gender programs in more than 80 countries.
    And as I said this morning, I am concerned that this 
administration is beginning to chip away at that commitment to 
gender equality and women's empowerment and to send ambivalent 
messages about how committed we are to that.
    As an example, the administration stripped all reference to 
sexual and reproductive health and rights from the State 
Department's Human Rights Report. That is an essential source 
of information for reporting on abuses and holding abusive 
governments to account.
    We also saw at the General Assembly last year that the U.S. 
pushed back against language in a resolution on violence 
against children that condemned all forms of violence against 
children, which has implications for--the U.S. Government 
pushed to limit this language to unlawful forms of violence 
against children, which has implications for what countries 
consider lawful violence, which could including things like 
child marriage, corporal punishment, that sort of thing.
    So reassure me that you will be committed to continuing 
that focus on women's empowerment and gender equality.
    Ms. Glick. Senator Shaheen, thank you very much for the 
question, and thank you too for meeting with me this morning. I 
found it very useful.
    And I do want to recommit to you that I am very focused on 
women's issues, maternal health, reproductive health, voluntary 
family planning. These are issues that a society cannot 
develop, a country cannot get on its own journey to self-
reliance if it does not take into account equal rights for 50 
percent of the population. This goes to educating girls. This 
goes to empowering women, whether it is through small business 
empowerment programs or through their own maternal health and 
access to information about how to more properly space their 
pregnancies so that they too can advance societally. I must 
reassure you that I am fully committed to ensuring that the 
agency focuses and continues a traditional focus on women's 
issues and women's rights.
    Senator Shaheen. Well, can you also talk about why this is 
important to men, not just women?
    Ms. Glick. This is critically important to men, as I have 
three of my most important men sitting behind me today. It is 
important for men to understand that women are productive and 
engaged members of their societies, that girls are equally as 
entitled to education as boys are because those girls and women 
will and should be the leaders of their countries in the 
future.
    Senator Shaheen. Thank you.
    And what we know is that when we support women in 
developing countries, that they tend to give back more to their 
families, to their communities, and to their countries than the 
male members of those societies. So I think it is very 
important to remind us all that this is not about women. It is 
about building stable societies. Thank you.
    Ms. Glick. Agreed. Thank you, ma'am.
    Senator Isakson. Senator Young?
    Senator Young. Thank you, Chairman.
    And I want to thank our nominees for your interest in 
serving our country, most appreciated. Welcome, members of your 
family and friends, to this hearing.
    Ms. Glick, in his June prepared testimony to this 
committee, Administrator Green wrote that our assistance seeks 
to help empower people, communities, and government leaders on 
their journey to self-reliance and prosperity.
    In that same hearing, I contrasted the United States' focus 
on building self-reliant, strategic, and economic partners with 
China's focus on resource extraction and the creation of 
dependence. Administrator Green agreed with my 
characterization.
    In a June speech at the Brookings Institute, Administrator 
Green commented on what he called, quote, emergence of China's 
mercantile authoritarian assistance programs. Unquote. He said 
China has shown little interest in adhering to the norms of 
debt sustainability or the principles of development assistance 
that we believe in, instead securing conditions in 
indebtedness, essentially mortgage a country's future. China's 
neocolonial hardball tactics and use of debt to force Sri Lanka 
to agree to a 99-year lease on a key port should be instructive 
to observers around the region, including Pakistan, Bangladesh, 
and elsewhere.
    Ms. Glick, can you share your thoughts on China's debt trap 
diplomacy and mercantile authoritarian assistance programs and 
how the United States should respond going forward?
    Ms. Glick. Senator, it is a great question, and I agree 
wholeheartedly with Administrator Green in his assessment of 
the Chinese approach to foreign assistance, which at the end of 
the day is leading to tremendous debt burdens for the countries 
that are recipients of this Chinese largesse.
    What USAID seeks to put forward is something that would be 
referred to as a clear choice, that countries have the option--
and I love the language of mercantile authoritarian assistance. 
That is great. He has got a great speech writer. It is very 
important that countries recognize what they are doing when 
they enter into a deal with the Chinese. And you mentioned Sri 
Lanka.
    We just saw and I just read in the ``Wall Street Journal'' 
a column about the Maldives, very close to Sri Lanka, which has 
taken the turn away from the direction of China. They just held 
elections. 90 percent of eligible voters voted, and 58 percent 
of them voted for the opposition candidate who took an active, 
pro-Western, and anti-Chinese approach, recognizing that he is 
not interested in mortgaging the future of the citizens of the 
Maldives.
    Senator Young. So that is a great lead-in to the second 
part of my question for you. It seems as though we have an 
opportunity to persuade populations within these countries that 
their future is, indeed, being mortgaged by accepting this sort 
of development assistance.
    So do you agree that the United States, therefore, should 
be using our voice and our vote and our convening power and all 
measures sort of at our disposal in multinational fora to 
educate all countries of the world about this sort of debt trap 
diplomacy and we should be pushing for more transparency on 
these projects in these various fora?
    Ms. Glick. Yes, sir, I absolutely agree.
    Senator Young. What about the use of Chinese labor on these 
local projects? Is that of concern to you as well, or is that a 
lesser concern maybe than the debt dimension?
    Ms. Glick. That is a great concern as well because U.S. 
development projects are focused on engaging with local 
employment, providing economic growth opportunities for people 
who are resident citizens of those countries where development 
projects occur. Importing labor from China and sometimes, I 
understand, importing substandard materials is a trap again. 
Countries are not getting economically developed the way they 
are through U.S. development assistance programs. And Chinese 
laborers come and go.
    Senator Young. So that is another point of education for 
the United States as we work with other countries who share our 
values and our model of development assistance to emphasize. 
There is really at least a dual mandate here to build the 
infrastructure and help catalyze an economy that needs 
catalyzation. Right?
    Ms. Glick. That is right, exactly.
    Senator Young. Ms. Glick, I want to pursue another line of 
questioning with you. But first, thank you for mentioning 
Rohingya in your prepared statement. I have done my best to 
follow this horrible situation. I have somewhat of a vested 
interest in this. We have a significant Burmese American 
population in my home State of Indiana. And I met with the 
Bangladesh Ambassador to the United States last week to talk 
about this very situation.
    I was pleased to see the administration's announcement just 
yesterday of additional humanitarian assistance, including $156 
million for Rohingya refugees in host communities in 
Bangladesh. The provision of critical emergency services, 
including protection, emergency shelter, food, water, 
sanitation, and health care, is in the best traditions of U.S. 
leadership on humanitarian assistance. And so I applaud the 
Trump administration for this decision.
    I would also note that the Department of State released 
yesterday a report entitled ``Documentation of Atrocities in 
Northern Rakhine State.'' Have you had a chance to review the 
report, Ms. Glick?
    Ms. Glick. I have not yet reviewed the report, but I know 
that it is out there.
    Senator Young. Okay. Will you review this report, Ms. 
Glick?
    Ms. Glick. Yes, of course.
    Senator Young. Mr. Chairman, I request unanimous consent to 
include this in the record.
    Senator Isakson. Without objection.


    [The information referred is located at the end of this 
transcript.]


    Senator Young. Thank you.
    So for those who have not reviewed it yet, based on a 
spring 2018 survey of the firsthand experiences of over 1,000 
Rohingya refugees in Cox's Bazar, additional credibility to 
reports we have already heard, the report found that the 
violence was, quote, extreme, large-scale, and widespread. The 
violence seemed designed for terrorizing the population and 
driving out the Rohingya residents. The scope and scale of the 
military's operations indicate they were well planned and 
coordinated, and that the tactics utilized resulted in mass 
casualties, including, quote, locking people in houses to burn 
them, fencing off entire villages before shooting into the 
crowd, or sinking boats full of hundreds of fleeing Rohingya.
    Ms. Glick, when we see such atrocities happen, in addition 
to demanding a halt to the violence and demanding humanitarian 
access, do you agree that we should seek to identify the 
perpetrators and hold them individually accountable?
    Ms. Glick. Yes, Senator, I do.
    Senator Young. Well, I certainly agree. If the words Never 
Again are to have meaning in actual practice, we should not be 
reluctant to call atrocities like this by their name, identify 
the perpetrators and hold them accountable. And so I am very 
encouraged by your responses. Thank you so much.
    Ms. Glick. Thank you, sir.
    Senator Isakson. Senator Kaine?
    Senator Kaine. Mr. Chair, thank you.
    And to the witnesses, congratulations for your nominations.
    I want to pay a compliment. I want to be blunt, and then I 
have a couple of questions.
    So on the compliment side, you are all three very, very 
appropriately qualified for these positions. I had a chance to 
see Mr. Montgomery's work in person on the SASC committee, and 
I think you will represent the nation very well.
    But I want to be blunt because we have hearings with people 
like you, like your director, director Green, who I think is 
very, very solid, where you represent the best traditions and 
want to do the best things. And yet, we are getting such a set 
of mixed messages from the administration that I think your job 
is hard. Well, I think one of you in your testimony said the 
purpose for AID and our humanitarian effort generally is 
because, A, it is who we are and we want to demonstrate who we 
are, and B, we want to encourage other nations to do more by 
our example.
    This is an administration that pulled out of--alone among 
nations, pulled out of the U.N. Global Compact on Migration, 
that just recently announced a very dramatic reduction of past 
practices of accepting refugees. We have received the budget 
proposals from the Trump administration with respect to USAID 
and the State Department. The first one in 2017 dramatically 
slashed the budget. We came back in a bipartisan way and worked 
to save USAID's budget. Did the administration learn? Did they 
say I guess Congress likes this and we should keep funding it? 
No. They came back this year and proposed a 31 percent cut for 
development assistance.
    Today the President spoke at the U.N. He pretty much 
trashed international institutions. He said the focus should be 
on sovereignty not international organizations of the kind that 
USAID partners with all the time. We are engaged in trade wars 
not even against nations we have to be pushing very hard like 
Canada, but we have engaged in trade wars using national 
security waivers against allies of ours.
    And so the notion that we want to be the leader to express 
who we are and we want to encourage others to do more, I 
frankly think that this is an administration that at the top, 
not people in your positions--at the top, the message is 
completely to the contrary. Even the report that Senator Young 
was asking about--it looked to me like the State Department in 
that report sort of took some mileage off the fast ball. They 
would not use the ``genocide'' word to summarize the evidence 
that was summarized very bluntly in the report, the atrocities, 
burning people alive, sinking their boats. But the 
administration would not use that word.
    And so I think the message that is being sent from the top 
sadly is that the work of USAID and the work of professionals 
like yours are not a priority for this administration. I do not 
expect you to comment on it, but I do not think we can leave 
that sort of unremarked upon in a hearing where we are talking 
about development aid when the President just went to the UNGA 
and basically got laughed at as he tried to describe what the 
United States was doing in the world because the gathering of 
leaders from other nations found that to be an incredible claim 
based upon what he has done.
    Let me ask a couple of specific questions, Ms. Glick, to 
you. What is the status of economic support fund assistance to 
the West Bank and Gaza? And what types of projects have been 
directly affected by the administration's effort to redirect 
funding? Are multiyear projects ongoing, or will they be 
stopped in their tracks? And if they are, how difficult will it 
be to resume those projects?
    Ms. Glick. Senator, thank you for your comments. I 
appreciate them very much. And I want to assure the committee 
that, if confirmed, I will follow in the footsteps of 
Administrator Green and be very grateful for the funding that 
Congress generously appropriates to the agency.
    On the specific subject of the funding for West Bank and 
Gaza, my understanding, although, you know, I was not part of 
the deliberations, is that this was part of a broad 
administration policy that was done across the interagency. I 
hear your concern. I am not prepared to comment on it because I 
was not there at the table with all of the decision-making. If 
confirmed, I commit to engaging with you and certainly with my 
friend, Mr. Harvey, on the issues going on in the West Bank and 
Gaza.
    Senator Kaine. Mr. Harvey, do you have anything you want to 
add to that?
    Mr. Harvey. No, other than to assure you, Senator, these 
are issues I know well. This is terrain I know very well. I 
will be all over this and I will be watching closely. I will be 
consistent with my reputation and people will know my sense of 
things. I will be a constructive player in the game.
    Senator Kaine. Excellent.
    Well, I think we will continue to ask about this because, 
again, I have confidence that you will do everything you can 
with every bit of resources you have. There are some decisions 
that are not made by you. But as we talk to leaders in Israel 
and Palestine, we are hearing, even on the Israeli side, a deep 
concern about the U.S. slashing some of these funds. Now, we 
need to use funds to promote good behavior, not reward bad 
behavior. But basic humanitarian needs--the United States 
backing away from providing basic humanitarian needs to people 
who are pretty stressed is likely to ratchet up tension, 
ratchet up problems rather than reduce them. And this is 
certainly what we are hearing from our Israeli allies, many of 
them.
    I want to ask about Syria. Delivering assistance there is 
really tough. You have to work through partners. It is very 
challenging. Senator Shaheen was there recently. And it has 
been an immense challenge for USAID's partners in the past and 
continues to be.
    There is legislation currently on the table in Congress 
that would severely limit the work USAID could work within 
Assad government-controlled areas. From a humanitarian 
perspective, would limiting assistance to, quote, a democratic 
Syria and severely conditioning assistance into areas under 
Assad's control be helpful or harmful to Syrian reconstruction 
prospects for peace and democratization?
    Mr. Montgomery. Sir, I will take that question first. And I 
appreciate it because I think it gets at an important issue 
here, which is that we are still providing a specific amount of 
humanitarian assistance in a very challenging political 
environment. I think it is around $875 million a year. And if 
you look back over the last 4 years, our government has given 
about $8 billion, USAID about $4 billion of that.
    And you are absolutely right, that it is challenging to 
deliver. I think we have the processes set up. I think as 
changes in the security environment have occurred in Syria, it 
has become more complex, but we do have a strong grouping of 
partners, I think 23 or so partners, that DCHA is using 
throughout Syria to distribute this assistance.
    Obviously, if the security environment becomes more 
challenging, delivery will be more challenging. But I think at 
our core, our mission is to provide humanitarian assistance to 
those most in need. So we will continue to press to provide it.
    We do have a series, working both internally and with our 
AID Inspector General, of assessments to make sure that 
assistance is being gotten to the right recipient and is 
getting there in its full context and value. And we will 
continue to ensure that that is happening. But you are 
absolutely correct, that it becomes more challenging as the 
security environment becomes weaker or more difficult for the 
United States to control.
    Senator Kaine. Do you know whether the administration has 
taken a position on the proposed legislation that would limit 
humanitarian aid into Assad-controlled areas? I mean, I think 
it is a hard question to kind of resolve. We do not want to 
prop up bad behavior by the Assad regime. Nevertheless, there 
are people suffering within those Assad-controlled areas that 
we have an understandable sympathy towards. So I do not think 
it is an easy question. But do you know whether the 
administration has taken a position on proposed congressional 
limitations of such aid?
    Mr. Montgomery. Sir, I agree with your background comments 
to it. And I do not believe we have taken a position, and I am 
not aware that we have.
    Senator Kaine. All right. Thank you.
    Thank you, Mr. Chair. Appreciate it.
    Senator Isakson. Thank you, Senator Kaine.
    Are there any other questions? Ms. Shaheen?
    Senator Shaheen. Mr. Harvey, I want to follow up a little 
bit on the direction that Senator Kaine was going on Syria. You 
talked about in your opening statement your experience in the 
Middle East. You pointed out that you actually led an agency 
task force for USAID to defeat ISIS in Iraq and Syria.
    So as Senator Kaine mentioned, I had the opportunity to 
visit northeast Syria during the summer and saw what was 
happening there after ISIS had been thrown out.
    So what do you see as the risks if we are not continuing to 
be present in areas like northeast Syria where ISIS has been 
defeated as we look at the future and the challenges that those 
communities face?
    Mr. Harvey. Senator, I opened my remarks by thanking you 
for taking the trip up there, and I was extremely personally 
pleased to hear that you were impressed with what you saw.
    Senator Shaheen. Very much.
    Mr. Harvey. You may know I was very deeply involved with 
getting that program up and running and working through the 
decision-making process to allow it to happen because there was 
a lot of uncertainty as to people's comfort with it. But I am 
very proud that we did it, and I am very proud of the success 
of it under really exceptionally difficult circumstances. A lot 
of the credit goes to our Syrian--most of the credit goes to 
our Syrian colleagues who really did the heavy lifting, but 
also our special forces who were just a remarkable bunch.
    Senator, I will be somewhat evasive in answering your 
question only in that I am not quite sure as to where the 
conversation is within our government yet. I intend to be 
deeply involved in those conversations as the situation evolves 
and changes. I think Senator McCain's assessment that we are 
going to be seeing some rather big changes coming in the near 
future is going to be something that all of us are going to be 
very aware of, and I intend to be very deeply involved in sort 
of thinking through what does that mean for our interests and 
how best can the United States respond.
    Senator Shaheen. Well, thank you. I really appreciate that.
    I have to also give credit to the Syrian Democratic Forces. 
As we saw them on the ground, they were very responsible 
players, and while I appreciate Turkey's view, the people we 
talked to did not have any interest in working with Turkey and 
doing anything to destabilize Turkey. They were interested in 
trying to maintain stability in that part of Syria. And it was 
really heartwarming to drive down the roads and see kids 
walking along flashing victory signs when they saw our military 
vehicles and to hear from people really urging us not to leave 
them alone, not to abandon them after we had thrown out ISIS.
    And I think it is really important for us to remember the 
lessons of Iraq and some of the other countries where we have 
made commitments. And I think we have heard both Ambassador 
Jeffery and National Security Advisor Bolton confirm that the 
administration intends to keep U.S. troops in Syria. And so 
making sure that that comes with those funds to stabilize the 
region, which we have committed to and which Congress has 
already appropriated, seems to me to make a lot of sense as we 
look at how we maintain stability in the region going forward. 
Would you agree with that?
    Mr. Harvey. Yes, ma'am. These are going to be tough issues. 
I think the administration's clear commitment to ensuring the 
enduring defeat of ISIS will ensure that we will do the right 
thing.
    Senator Shaheen. Bless you. [Laughter.]
    Senator Shaheen. Both for your comments and whoever is 
sneezing in the back of the room.
    Ms. Glick, one of the other issues we discussed this 
morning was the pullback that the United States has made from 
UNFPA and support for family planning programs. And the 
explanation that has been given has been because of their 
support for China's one child policy. Again, as I said to you 
this morning, I am very concerned that what we are doing in 
pulling back on our support for family planning, actually 
putting more families at risk, seeing more abortions, more 
maternal deaths as the result of that. So can you talk about 
what your commitment will be at USAID to ensuring that we 
continue to support family planning and strong families?
    Ms. Glick. Senator, thank you very much.
    I will confirm to you that I do continue to support strong 
families, voluntary family planning, maternal health, women's 
health issues, access for women to quality health, quality 
health services, quality deliveries, access for women and men 
to make informed decisions on choosing the number and timing of 
their pregnancies.
    I think that the funding that is being withheld from the 
U.N. Population Fund is being reprogrammed is my understanding. 
You and I discussed this morning about what it is being 
reprogrammed into. And I went back to USAID after our meeting 
and discussed it and learned that it is being reprogrammed into 
maternal health programs, into reproductive health and 
voluntary family planning programs and into a new initiative 
that the agency is taking on, which is a new focus on cervical 
cancer, which is closely tied to reproductive health.
    Senator Shaheen. Well, thank you. I think that is 
important. As we discussed, however, the reprogramming request 
is also part of language that I submitted in the appropriations 
bill actually, and what we learned is that it required 
questions from this committee's minority staff in order to get 
USAID to do that reprogramming and that we are still waiting to 
have a briefing on how that happened, why that did not happen 
automatically once the legislation was passed.
    So will you commit to me that, once confirmed, that USAID 
will brief the Senate Foreign Relations committee members who 
are interested and my office on the original notification?
    Ms. Glick. Yes, ma'am. I will commit to that. I will also 
commit that we will focus on these very important issues.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Isakson. Thank you, Senator Shaheen.
    Thank you all for your willingness to serve your country. 
Thank you for the service you have given to the country in the 
past. We look forward to seeing your confirmation completed and 
your serving your country in the future overseas.
    For the benefit of those here and on the panel, the record 
will be held open until September 27th for any additional 
comments or any additional filings or any additional questions.
    If there are no other further questions, this meeting 
stands adjourned.
    [Whereupon, at 4:09 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
             Mark Montgomery by Senator Benjamin L. Cardin

USAID Redesign and DCHA
    The administration's proposed plan to redesign USAID significantly 
changes the agency's organizational structure. For example, the current 
Democracy, Conflict and Humanitarian Affairs (DCHA) Bureau's functions 
will now be spread across three new bureaus, with most of its functions 
consolidated with the Offices of Foreign Disaster Assistance and Food 
for Peace in the new Bureau for Humanitarian Affairs.

   Do you expect that the current DCHA bureau's responsibilities will 
        be completely transferred across the new organizational 
        structure?

    Question 1. Do you expect that the current DCHA bureau's 
responsibilities will be completely transferred across the new 
organizational structure?

    Answer. Yes. The functions and responsibilities currently carried 
out by DCHA will move to the proposed Bureaus for Humanitarian 
Assistance; Conflict-Prevention and Stabilization; and Development, 
Democracy, and Innovation.

    Question 2. What challenges do you anticipate?

    Answer. As with any significant reorganization effort, there will 
be challenges around implementation and managing change, for staff, 
stakeholders, and partners. As I said during my confirmation hearing, 
in many reorganizations a big challenge is that people try to protect 
what they see as ''theirs,'' without understanding the overall vision 
of what leadership is seeking to achieve. In my experience with DCHA so 
far, however, I have found staff to be very adaptive to the turbulence 
they experience as a regular part of their job in the field, and I 
think that mindset translates to Washington as well. If confirmed, I 
will do my best to support DCHA staff during this transition.

    Question 3. How do you believe DCHA matters will be better handled 
across three bureaus?

    Answer. I understand that under the Transformation, the new 
Associate Administrator for Relief, Response and Resilience (R3) would 
oversee the proposed Bureaus for Humanitarian Assistance, Conflict-
Prevention, and Resilience and Food Security. The intent of this 
proposed structure is to further strengthen the programming funded by 
the U.S. Agency for International Development (USAID), by making it 
more efficient and holistic across the spectrum of preparing for, 
preventing, responding to, and mitigating disasters.. The Agency also 
believes this would elevate USAID's stature with interagency colleagues 
on these issues.
    Combining USAID's humanitarian-assistance into programs into a 
single Bureau would strengthen and elevate the Agency's stature, both 
within the U.S. Government and with our international partners. The 
proposed Bureau for Humanitarian Assistance would advance USAID's goal 
of seamlessly delivering international disaster aid, which would better 
serve U.S. Government foreign-policy interests, and people in need 
throughout the world. The Bureau would achieve efficiencies by 
eliminating redundancies between the Offices of Foreign Disaster 
Assistance and Food for Peace and optimizing their resources through 
joint operations, and by further integrating food and non-food 
humanitarian assistance.
    Currently, USAID implements over 70 percent of its programs in 
countries considered fragile or conflict-vulnerable. The proposed 
Bureau for Conflict-Prevention and Stabilization would better 
coordinate the Agency's prevention, stabilization, and response efforts 
by combining small, separate offices with overlapping functions. This 
would enhance USAID's operational capabilities in responding to crises, 
including through a strengthened focus on preventing violent extremism.
    The proposed Democracy, Development, and Innovation Bureau would 
elevate the Agency's democracy and governance programming through the 
creation of a Deputy Assistant Administrator to oversee this portfolio. 
Democracy and governance underpins sustainable development, but in the 
current structure conflict and immediate humanitarian responses often 
overshadow our programs in democracy and governance.
    While resilience and food security do not currently fall entirely 
under the oversight of DCHA, I understand that while the Transformation 
proposals are pending Congressional approval, DCHA looks forward to 
deepening and expanding intra-agency coordination around resilience and 
food-security programming to achieve the goal and objectives of the 
U.S. Global Food-Security Strategy.
Human Rights
    Quesrtion 4. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In a macro sense, during a 32-year military career I was 
involved in combat operations in Kuwait and Iraq, the former 
Yugoslavia, and Afghanistan, all of which attempted to ensure the 
deterrence or defeat of authoritarian regimes that threatened the human 
rights of our allies and partners.
    In a micro sense, while serving as a flag officer at U.S. European 
Command, I worked closely with the State Department and USAID country 
teams in the Baltics, Balkans and Caucuses, and in this role, I 
supported the positive progress of U.S. democracy and stabilization 
efforts in these nascent and transitioning democracies. This assignment 
taught me the valuable role that the U.S. Government, and, more 
specifically, USAID, has in building stable, resilient democracies, and 
how the development of these democracies contributes to the stable 
international order the United States both supports and relies on.
Diversity
    Question 5. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I commit to fully supporting and empowering 
my staff, to benefit their development, as well as that of the Bureau 
and the Agency.

    Question 6. What steps will you take to ensure each of the 
supervisors in the DCHA Bureau are fostering an environment that is 
diverse and inclusive?

    Answer. It is important for leaders to foster a culture of respect 
and accountability. I am committed to creating opportunities for 
diverse voices and ideas to be heard and valued as we tackle serious 
development and humanitarian challenges. These are the principles I 
intend to model, and to foster, across all levels of leadership in the 
Bureau for Democracy, Conflict and Humanitarian Assistance (and its 
successor structures if Congress approves the Agency's Transformation).
Conflicts of Interest
    Question 7. Do you commit to bring to the committee's attention 
(and the USAID Inspector General) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Mark Montgomery by Senator Jeanne Shaheen

    Question 1. USAID has reportedly pressed for refugee-related 
resources in the MRA account to be shifted from State to AID. What is 
the rationale for this, and would this not simply handicap and 
debilitate the humanitarian voice within the State Department?

    Answer. I understand the administration has made no decisions 
regarding the management of humanitarian assistance between the U.S. 
Department of State and the U.S. Agency for International Development 
(USAID).
    Staff have briefed me that, in response to the President's request 
to maximize Government-wide efficiencies and promote corresponding 
organizational change, USAID and the Department of State have been 
exploring various options to harmonize humanitarian policy and ensure 
the most efficient and effective use of U.S. taxpayer dollars to 
deliver relief around the world. Both the Department of State and USAID 
can play important roles in this regard.

    Question 2. Section 491 of the Foreign Assistance Act makes clear 
that the International Disaster Assistance account is a needs-based 
humanitarian account, to be used to aid ``those most in need.'' Unlike 
other foreign assistance streams, IDA allocations may not be driven by 
political or strategic considerations. Can I have your assurance that 
under your oversight, USAID's use of the IDA account will adhere to 
this legislative requirement?

    Answer. I understand the U.S. Agency for International Development 
(USAID) strives to provide IDA-funded humanitarian assistance on the 
basis of need. If I am confirmed, USAID will continue to do so under my 
oversight.

    Question 3. Credit unions and other types of cooperatives operate 
according to democratic principles and have a proven track record of 
promoting local self-reliance and democratic governance. For example, 
USAID is working with Ukrainian credit unions to help promote democracy 
and economic stability during Ukraine's ongoing civil war, and USAID is 
working with credit unions in Haiti to help better promote democracy, 
strengthen Haitian civil society, and reduce conflict in that nation. 
If confirmed, how will USAID increase its use of local, democratic 
organizations like credit unions and other cooperatives in order to 
help better promote democracy and reduce conflict around the world?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) supports credit unions and other cooperatives to 
advance a range of goals, such as expanding access to financial 
services in rural areas and helping countries strengthen their 
agricultural potential. I believe these efforts help build the capacity 
of local citizens and institutions to manage resources for the 
betterment of their communities, and reinforce important democratic 
principles of inclusion and citizen-responsive governance. If 
confirmed, I am committed, alongside the Administrator, to ensuring 
that effective local solutions and citizen-responsive governance are a 
central focus of USAID's mission to support partner countries on their 
journey to self-reliance.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Mark Montgomery by Senator Todd Young

    Question 1. Based on your preparation for your nominations and this 
hearing, can you provide an update on the humanitarian situation in 
Yemen, particularly in and around the port of Hodeidah?

    Answer. Yemen is facing the largest humanitarian crisis in the 
world, which stems from the ongoing conflict that broke out in March 
2015. Nearly 76 percent of the country-or more than 22 million people-
needs humanitarian aid, and more than two million people are unable to 
return home after fleeing for safety.
    Regarding Hudaydah, I understand that, because Yemen has 
traditionally imported 90 percent of its food, and most of its fuel and 
medicines, through its Red Sea ports, Hudaydah is critical to both 
humanitarian and commercial supplies. USAID's Famine Early-Warning 
System has cautioned that any conflict around Hudaydah could disrupt 
the operations of the port, and drive Yemen into famine. I am aware 
that the United States continues to urge all parties to continue to 
allow all humanitarian and commercial goods, including fuel, to enter 
Yemen through all points of access--including Hudaydah--and to allow 
humanitarian actors to move freely throughout the country to reach 
people in need.

    Question 2.  What do you see as the leading humanitarian concerns 
right now in Yemen?

    Answer. I understand that access remains the overriding challenge 
to providing life-saving humanitarian assistance to Yemenis in need. 
Checkpoints, violence against humanitarians, and various bureaucratic 
impediments need to end. The conflict, in combination with these 
impediments, has left more than 1.4 million people in hard-to-reach 
areas.

    Question 3. Do you believe all parties to the conflict have a 
responsibility to provide full and unfettered humanitarian access?

    Answer. Yes, I believe all parties must provide free and unfettered 
humanitarian access into and throughout Yemen.

    Question 4. If the civil war continues, how do you see this 
impacting the humanitarian situation there?

    Answer. I expect further loss of life, increasing food insecurity 
and spread of disease.

    Question 5.  Do you agree that sustainable progress in the world's 
largest humanitarian crisis will require an end to the civil war?

    Answer. Yes, I believe humanitarian assistance alone will not solve 
the situation in Yemen. Rather, we must continue to work towards a 
lasting, political solution to this conflict.

    Question 6. If confirmed, will you keep me and my office regularly 
updated on developments related to Yemen?

    Answer. Yes, I will.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Mark Montgomery by Senator Edward J. Markey

Democracy Programs
    Question 1. Democracy is coming under attack internationally, as 
China and are actively undermining liberal democracies around the 
world, as well as this model of government, more generally. A narrative 
exists that efforts to create or improve democratic systems can and 
should be de-emphasized for the sake of increasing stability within a 
country. Do you accept the premise of the narrative described above? 
That is, how should the United States weigh the tradeoffs between 
democracy and stability? Do you believe that democracy promotion can be 
counter-productive? If confirmed, how would you address the critique 
presented by those who prioritize stability over the system of 
democracy and the rights and freedoms associated with it?

    Answer. No, I emphatically do not accept the premise that de-
emphasizing efforts to improve democratic systems will increase 
stability. Instead, I believe that improving a country's citizen-
responsive governance will inevitably bolster its long-term stability.
    I understand the new approach of the U.S. Agency for International 
Development (USAID) to promote the self-reliance of partner countries 
includes a significant emphasis on the role of democratic institutions, 
processes, and principles as the basis for sustainable development. The 
premise is that citizen-centered, democratic governance--while not 
always quick or easy--offers the most-reliable pathway to make durable 
improvements in people's lives, drives higher levels of economic 
innovation, and prevents or moderates social conflict.
    This approach stands in stark contrast to an emerging authoritarian 
model, often propagated by Russia and China, that corrodes rules-based 
systems, entrenches corruption, discounts the voice of citizens, and 
erodes individual liberties. As history has proven time and time again, 
that formula is not a recipe for success--in fact, it makes the world a 
more-dangerous place for advancing America's interests. Many of the 
crises to which USAID is responding are a byproduct of exclusionary 
politics, poor governance, corruption and impunity, weak civilian 
institutions, and the absence of political accountability. If 
confirmed, I will make it a priority to advance democracy and stability 
as compatible and self-reinforcing policy objectives. I will also 
leverage the talents in across the Agency to strengthen assistance in 
democracy and governance in fragile and conflict-affected states.

    Question 2. Our leadership in promoting democracy is long-standing, 
and based on values we espouse. We value individual liberties, freedom 
of expression, mutual respect and tolerance. I believe our programs are 
complicated when our senior-most officials make public comments opposed 
to these values. Comments made by the President that impugn 
journalists, criticize individuals for expressing themselves during the 
national anthem, and denigrate minorities and women complicate our 
efforts to be a leader on democratic principles. And we have seen 
authoritarian leaders use the President's comments to justify their own 
policies. Last year, Cambodian president Hun Sen said he sympathized 
with President Trump's views on journalists, calling them an 
``anarchic'' group. If confirmed, how do you plan to respond to foreign 
counterparts who state that some of the President's tweets and comments 
appear to be antithetical to foundational democratic principles? Do you 
see the President's comments limiting the effectiveness of our 
democracy promoting activities?

    Answer. I have spent 33 years in the U.S. Government, including 32 
years on active duty in the U.S. military, defending the rights of the 
American people and our allies and partners, including their rights to 
all forms of individual liberty, freedom of expression, mutual respect 
and tolerance. I am comfortable framing my discussions with foreign 
counterparts in language that reflects my personal experiences, and 
will espouse the core values of the American people in all such 
engagements. I place little value in the words of autocratic thugs like 
Hun Sen, whether they happen to support my immediate point of view or 
not.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Mark Montgomery by Senator Rob Portman

Post-Soviet Countries
    Question 1. What could the United States do better to promote 
democracy and good governance in the post-Soviet space, particularly 
Central and Eastern Europe?

    Answer. The U.S. Agency for International Development (USAID) must 
continually learn from, and adapt, its programs to better promote 
democracy and citizen-responsive governance. The Kremlin has pursued a 
set of measures to undermine democratic institutions and the rule of 
law in Central and Eastern Europe, and to spread disinformation.
    To respond to the Kremlin's actions, I understand that USAID has 
prioritized resources to create local news exchanges and networks of 
independent media outlets. Additionally, USAID staff have briefed me 
that programs like the Prague Center and the Balkan Trust for Democracy 
bring civic activists together from throughout the region to learn best 
practices and build the capacity of their organizations to counter 
malign influence in their own countries and communities.
    I also understand that USAID is working to finalize a Countering 
Kremlin Influence Development Framework, which identifies challenges 
and sets priorities for promoting democracy in the presence of this 
external malign influence. If confirmed, I look forward to working with 
my colleagues at USAID, and with Congress, on how we can push back 
against Kremlin aggression in the region.

    Question 2. Does significant Russian involvement in these countries 
complicate or impede U.S. efforts to support democracy and good 
governance? Do you believe that Russia has an interest in encouraging 
corruption and undermining democratic institutions in the countries in 
its ``near-abroad''?

    Answer. Yes, Russian actions and interference in Europe and Eurasia 
create significant challenges for U.S. efforts to support democracy and 
good governance. It is clear the Kremlin is increasingly drawing on a 
wide array of tools to undermine democratic institutions and processes, 
weaken the rule of law, and spread disinformation.
    I believe that Russia has an interest in encouraging corruption and 
undermining democratic institutions in the countries in its ``near-
abroad,'' and that the Kremlin exploits the internal corrupt practices 
of other countries for its own political and economic advantage.

    Question 3. Specifically in Ukraine, what can DCHA do to promote 
good governance and fight corruption?

    Answer. Years of conflict, Russian aggression and influence, and 
deep, systemic legacies of corruption continually threaten Ukraine's 
commitment and capacity to make progress. If confirmed, I will work to 
ensure that the Bureau of Democracy, Conflict, and Humanitarian 
Assistance (DCHA) within the U.S. Agency for International Development 
(USAID) continues to promote U.S. foreign-policy objectives by 
supporting citizen-responsive governance; fighting corruption; and 
building the capabilities of local government to be effective, 
responsive, and impactful.
    For example, I understand that the USAID/DCHA Office of Transition 
Initiatives (OTI) works in Eastern Ukraine to ensure citizens have 
greater confidence in Ukraine's democratic reform and roadmap for 
European integration. In Ukraine's Eastern Oblasts of Kharkiv, Donetsk 
and Luhansk, USAID/OTI worked with local governments to establish 
Administrative Service Centers (ASCs), which provide over 100 necessary 
services related to registration, licensing and identification that 
previously required bribes, and involved long waits, visits to multiple 
locations and poor treatment by bureaucrats. By reinforcing reform 
efforts, these initiatives not only help promote good governance and 
transparency, but also work to dispel narratives (propagated by the 
Kremlin) that the Ukrainian Government's reform efforts have failed.

    Question 4. Which countries in this region do you believe should be 
of particular concern for DCHA?

    Answer. I am concerned with democratic-backsliding trends in the 
Europe and Eurasia region. In addition to long-standing authoritarian 
regimes in Belarus and Azerbaijan, numerous countries in the region, 
such as Serbia and Bosnia, are experiencing increased suppression of 
media and civil society, disruptive and destabilizing Russian 
influence, and growing nationalist tensions. Yet other countries in the 
region, such as Macedonia and Armenia, are on the cusp of a democratic 
renewal. I believe the United States should support these positive, 
early-stage trends so that nascent reforms can take root and grow into 
systemic changes that produce stronger democracies. I also see Ukraine 
and Georgia as critical, priority countries for promoting democratic 
stability in the region.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Mark Montgomery by Senator Cory A. Booker

Democracy promotion and U.S. leadership
    Question 1. For many years the United States has played a 
leadership role in promoting and supporting democratic development 
around the world. I believe in this effort. However, recently there has 
been a phenomenon referred to as democratic backsliding, which 
describes the increased restrictions that many civil society leaders, 
political leaders, journalists, and activists have faced around the 
world. In fact in our own country, challenges to our own democracy have 
become more evident in the past several years. In supporting democratic 
development around the world, how does our own country's current 
challenges upholding democratic institutions and practices impact your 
efforts to encourage such reforms abroad?

    Answer. Democratic-backsliding is a global phenomenon, 
characterized by increasing governmental constraints on fundamental 
freedoms, including freedom of speech, religion and association. A new, 
more-sophisticated form of authoritarianism that uses subversive 
tactics to undermine the legitimacy of democratic institutions 
exacerbates this trend. Democratic deficiencies in other countries also 
contribute to some of the biggest threats to U.S. national security, 
including violent extremism, armed conflict, and transnational 
organized crime, because terrorists, criminal organizations and others 
exploit vulnerabilities created by weak rule of law, unchecked 
corruption and ineffective governance. U.S. leadership and partnership 
with like-minded governments will continue to be critical to 
safeguarding democracy abroad.

    Question 2. How can we effectively fight back against the 
democratic backsliding that is happening around the world today?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) has carefully assessed the drivers of backsliding 
and developed programmatic responses, including by lending critical 
support to civil-society organizations, human-rights groups, and free 
and independent media outlets to build awareness and pressure national 
authorities to reverse deteriorating social, economic, and political 
conditions.


                               __________


     Responses to Additional Questions for the Record Submitted to 
                Bonnie Glick by Senator Robert Menendez

Conflicts of Interest
        USAID provides assistance, and has active missions, in several 
        countries where the Trump Organization has or is pursuing real 
        estate and other business developments, many of which require 
        approval and/or cooperation from the central government or 
        state owned industries.

    Question 1. What steps do you believe USAID should take to ensure 
that a country's receipt of foreign assistance has no influence on a 
foreign government's dealings with the Trump Organization, and vice-
versa?

   Does USAID have such a policy in place?
   If not, would you be responsible for developing it?
   If confirmed, will you assure this committee that you will work to 
        ensure that USAID's foreign assistance will in no way be 
        influenced by the President's private business dealings or that 
        of the Trump organization?

    Answer. I believe it is critically important that the U.S. Agency 
for International Development (USAID) maintain competitive and 
transparent processes for providing grants, cooperative agreements, and 
contracts. If confirmed, I will work to ensure that USAID avoids 
conflicts of interest, including the appearance of a conflict.
Democracy Promotion
        Helping grow democratic and citizen responsive governance 
        abroad underpins the success of U.S. relief and development 
        missions.

    Question 2. What are the most important actions you have taken in 
your career to date to support democracy and human rights?

   What has been the impact of your actions?

    Answer. Among the duties of my first overseas tour in Addis Ababa, 
Ethiopia, was to serve as the U.S. Embassy's Human Rights Officer, and 
to draft our submissions on Ethiopia for the State Department's annual 
Report on Human Rights. I was the only Foreign Service Officer in the 
Embassy trained in the Amharic language, which gave me access to 
populations around the country who did not speak English. I frequently 
traveled around the country, either on my own or with a colleague from 
another foreign embassy (often the The Netherlands), to investigate 
reported violations of human rights committed by the recently deposed 
dictatorship, including politically motivated imprisonments, torture, 
false imprisonment, and others. I reported on these up the chain of 
command at the State Department, but the American Ambassador in 
Ethiopia also took seriously the human-rights violations being 
committed by the new Ethiopian Government, and raised concerns on a 
regular basis with the fledgling leaders themselves, by using 
information I had gathered.
    Human rights and democracy relate to more than just political 
abuses. They have to do with the way individuals interact with each 
other, in the workplace, in communities, in countries. During my time 
in the non-profit sector, much of my work focused on international 
exchange programs designed to address populations who were vulnerable 
in their own countries. I ran programs for Iraqi university students 
from various parts of the country that were designed to build bridges 
across ethnic, religious, and cultural divides. Bringing more than 100 
Iraqi college students to the United States each year, breaking them up 
into four to five different, religiously/ethnically/geographically/
economically diverse cohorts, and sending them to study in universities 
across our country was a great way to promote understanding. This 
program brought together these future leaders of Iraq, women and men 
who had never met before, and who would never have met in their own 
country, and, through them, I saw a promising future Iraq. In 2016, 
when I convened a summit of the alumni of the program in Erbil, I was 
astounded to see how wonderfully the students had matured, and how they 
came to understand that the prejudices with which they were raised were 
dispelled when they had friends who represented previously ``hated'' 
communities.
    Similarly, I ran a program in which high-school-aged Pakistani 
girls came to the United States to participate in a science program 
with American girls at the State University of New York Polytechnic 
Institute in Albany, where they learned from leading scientists and 
professors. The opportunity for the brilliant young Pakistani girls to 
be exposed to a science environment in which they were not judged by 
their gender was new to them, and they went back to Pakistan convinced 
of the need to empower girls, and to be spokeswomen for their gender in 
the sciences. I have no doubt they will do great things in computer 
science, medicine, and beyond.
    If confirmed, I will be committed to promoting human rights and 
democracy around the world, because democracy underpins all of work of 
the U.S. Agency for International Development.

    Question 3. What issues are the most pressing challenges to 
democracy or democratic development around the globe? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. A major challenge is the continuing trend of democratic-
backsliding, characterized by increasing governmental constraints on 
fundamental freedoms, including freedom of speech, religion and 
association, as well as abuses of human rights. The rise of a new, more 
sophisticated form of authoritarianism that uses subversive tactics to 
undermine the legitimacy of democratic institutions is exacerbating 
these trends. In places like Cambodia, where the Hun Sen regime has 
banned the only credible political opposition and civil society is 
under duress, the authoritarians have become savvy in creating the 
veneer of democratic processes while prolonging their rule. In some 
African countries, democratically elected leaders are also changing the 
rules--often through Constitutional amendments--to expand the scope of 
their power and the length of their terms.
    Democratic deficiencies in other countries also contribute to some 
of the biggest threats to U.S. national security, including violent 
extremism, armed conflict, and transnational organized crime, because 
terrorists, criminal organizations and others exploit vulnerabilities 
created by weak rule of law, unchecked corruption, and ineffective 
governance. Within our own Hemisphere, we are witnessing endemic 
corruption, economic mismanagement, and political repression drive 
instability in Venezuela and Nicaragua. I understand that the U.S. 
Agency for International Development (USAID) is lending critical 
support to civil-society organizations, including human-rights groups, 
and free and independent media outlets to build awareness and pressure 
authorities to reverse deteriorating social, economic, and political 
conditions.

    Question 4. What steps will you take--if confirmed--to support 
democracy globally? What do you hope to accomplish through these 
actions?

    Answer. If confirmed, I will be committed to implementing the 
mission statement of the U.S. Agency for International Development 
(USAID), particularly its commitment to strengthening citizen-
responsive, democratic governance abroad. I know this is a priority for 
Administrator Green, and I wholeheartedly endorse the steps he has 
already taken to address serious democratic challenges around the 
world. Because good governance is key to all development work, I would 
keep it in the forefront of my work to achieve two key outcomes: 
mitigating the risks of democratic-backsliding; and helping countries 
move forward in their Journey to Self-Reliance through citizen-
responsive, democratic governance.

    Question 5. What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. The same technologies that offer opportunities for 
strengthening democracy can be repurposed as impediments to democracy, 
as authoritarian regimes develop and share tools to spread 
disinformation, manipulate elections, and discredit democratic 
institutions. The U.S. Agency for International Development often 
provides democracy assistance in challenging, fragile, and conflict-
prone environments. I understand the Agency must continually adapt to 
address emerging obstacles, with long-term engagement and support in 
mind as a method for making gains over time.

    Question 6. How will you utilize U.S. Government assistance 
resources at your disposal to support democracy and governance, and 
what will you prioritize in processes to administer such assistance?

    Answer. If confirmed, I will be committed to using U.S. Government 
resources available to implement the mission statement of the U.S. 
Agency for International Development, which includes an explicit 
commitment to strengthening citizen-responsive, democratic governance 
abroad. Among the priorities I envision are the following: 1) 
developing effective approaches to emerging issues and priorities 
within the democracy sector, including religious freedom, 
disinformation, and authoritarian influence; 2) strengthening rapid-
response capabilities in fragile and transitioning political contexts; 
and 3) expanding the integration of democracy, rights, and governance 
principles in other development sectors, because participatory and 
inclusive approaches make for more sustainable and effective 
development outcomes.

    Question 7. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society when you travel abroad?

    Answer. Yes. If confirmed, I commit to meeting with civil-society 
and human-rights organizations, both in Washington, D.C., and during my 
travels abroad.

    Question 8. What steps will you take to proactively address efforts 
to restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. I understand that the U.S. Agency for International 
Development has funded programs to defend and improve the legal 
environment and expand civic space around the world, such as the Non-
Governmental Organization (NGO) Legal Enabling Environment Program 
(LEEP), which promotes a more welcoming legal and regulatory 
environment for civil-society organizations and responds swiftly to 
NGOs by providing technical assistance on laws and regulations that 
affect them.

    Question 9. If confirmed, do you commit to meet with political 
opposition figures and parties who support democratic governance?

    Answer. Yes. I commit to meeting with democratically oriented 
political figures and parties, both in Washington, D.C., and during my 
travels abroad.

    Question 10. What steps will you take to encourage genuine 
political competition?

    Answer. I believe that political competition is an essential 
element of democratic governance, and I understand that the U.S. Agency 
for International Development funds extensive programming to foster 
genuine political competition in a number of the countries. If 
confirmed, I commit to support critical programs that strengthen 
political parties, improve the administration of elections and dispute-
resolution institutions, provide credible and impartial domestic and 
international observation of elections, conduct civic and voter 
education, and prevent and mitigate election-related violence.

    Question 11. Will you advocate for access and inclusivity for 
women, minorities and youth within political parties?

    Answer. Yes. If confirmed, I will be a staunch advocate for access 
and inclusivity for women, minorities and youth within political 
parties. Diversity of all sorts, particularly the diversity in 
viewpoints offered by these and other population segments, are critical 
voices to be heard as countries continue on their Journeys to Self-
Reliance.

    Question 12. Will you actively support freedom of the press and 
address any government efforts designed to control or undermine press 
freedom through legal, regulatory or other measures?

    Answer. Yes, if confirmed, supporting freedom of press will remain 
one of my priorities. The U.S. Agency for International Development has 
historically recognized the important role that an independent press 
plays in citizen-responsive governance, and is one of the largest 
donors for the development of pluralistic, diverse, independent media 
systems.

    Question 13. Will you commit to meeting regularly with independent, 
local press when you travel abroad?

    Answer. Yes.

    Question 14. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors around the world?

    Answer. Yes. If confirmed, I commit to continuing engagement with 
civil society to counter disinformation and propaganda.

    Question 15. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity?

    Answer. Yes. Administrator Green has been clear that inclusion is 
one of the core values of the U.S. Agency for International 
Development, and that non-discrimination toward beneficiaries is a 
basic principle of development. I wholly agree, and commit that I will 
defend the human rights and dignity of all people across the globe, no 
matter their sexual orientation or gender identity.

    Question 16. What specifically will you commit to do to help LGBTQ 
people around the world?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) continues to implement its comprehensive, inclusive 
non-discrimination policies for the beneficiaries of contracts and 
grants. If confirmed, I will support the implementation of these 
policies.
    Administrator Green has also elevated the importance of inclusive 
development approaches to help ensure that all marginalized groups in 
developing countries participate in, contribute to, and benefit from 
USAID's development efforts. If confirmed, I will support this 
approach.
Climate Change
    Question 17. Climate change is an emerging threat the Department of 
Defense refers to as a ``threat multiplier.'' Do you believe that human 
activities, such as the burning of fossil fuels and other activities 
that release greenhouse gases into atmosphere is contributing to the 
increase global average temperatures?

   If not, do you intend to change USAID policy and programming that 
        addresses the challenges around climate change according to 
        your views on climate change?

    Answer. I believe that the climate is changing, and that it has 
always been changing. I understand that the U.S. Agency for 
International Development (USAID) looks at climate change and other 
environmental challenges through a development lens, and that the 
Agency continues to work with its partners around the world to help 
them deal with the impacts of extreme weather events and a changing 
climate.

    Question 18. When USAID seeks improve global food security and 
examines climate change's role in increasing drought risks, or how sea 
level rise may infiltrate underground fresh water aquifers, or how 
climate change is affecting the range of disease vectors like mosquitos 
that carry malaria. do you believe it is not necessary, or wrong, to 
account for what scientific data is telling us about climate change 
risks?

    Answer. I understand that a core principle of the development 
policy and programming of the U.S. Agency for International Development 
(USAID) is that it applies analytic rigor to support evidence-based 
decision-making. Staff have briefed me that USAID actively incorporates 
consideration of climate conditions into its country strategies and 
processes to design projects and activities, to ensure its portfolio of 
investments does not have a negative impact on the environment and 
positively helps to build the resilience of communities and countries 
in the long term. Proactively managing the risks of weather-related 
shocks and stresses, such as droughts, floods, and shifting rainfall 
patterns, also reduces the need for costly disaster response. During my 
time in IBM's Research Division, scientists actively looked at ways to 
predict weather patterns and to plan accordingly. If confirmed, I hope 
to work with experts in industry and academia to find ways to plan 
resilient responses to climatic shocks.
An Independent USAID
    Question 19. Throughout the first year of the Trump administration, 
the administration sought to subsume USAID into the State Department. 
Do you believe that USAID should be an independent agency?

    Answer. Yes, I believe the U.S. Agency for International 
Development should remain an independent Agency.

    Question 20. How important to the mission and success of USAID, do 
you believe us associated with maintaining USAID's development missions 
separate from, but adequately coordinated with, State Dept.'s 
diplomatic and political missions?

    Answer. I believe it is critical for the development mission of the 
U.S. Agency for International Development (USAID) to remain separate 
from, but coordinated with, the mission of the Department of State. 
This allows USAID to focus on long-term development programs while 
closely planning with the Department of State to ensure these 
investments align with diplomatic priorities and policy goals.

    Question 21. If confirmed, will you work ensure that USAID remains 
independent?

    Answer. Yes.

    Question 22. If confirmed, will you work to defend USAID's ability 
to determine its own priorities and develop its own strategic 
approaches to achieving its missions?

    Answer. Yes. If confirmed, I will be a strong advocate for the 
ability of the U.S. Agency for International Development (USAID) to 
fulfill its critical mission and help our partner countries make 
progress on their Journeys to Self-Reliance.
USAID Budgets
    Question 23. Two years in a row, the President proposed to cut 
USAID's budget by nearly 40 percent. Do you believe USAID can do its 
job effectively under the budgets the President has proposed for the 
Agency?

    Answer. If confirmed, I pledge to work to advance the core priority 
of the U.S. Agency for International Development--advancing America's 
interests through our foreign assistance. While I was not involved in 
the formulation of previous budget requests, I believe that the 
Agency's work must directly improve humanitarian and development 
outcomes, in ways that are clearly measurable and easily evaluated, and 
should be designed to contribute to the self-reliance of our partners.

    Question 24. Understanding that needs may (or will) always be 
greater than the sums of funds provided, do you believe this is a 
reasonable excuse for not requesting funds that more closely or 
accurately reflect USAID's needs?

    Answer. If confirmed, I look forward to engaging in the budget 
process for Fiscal Year 2021. I look forward to supporting 
Administrator Green in efforts to ensure the U.S. Agency for 
International Development is targeting its investments at critical 
development and national-security needs and that the funding generously 
appropriated by Congress directly advances America's national interests 
and economic prosperity.

    Question 25. What should USAID do differently to convince to budget 
decision makers within the White House, National Security Council and 
the Office of Management and Budget to provide a better and more 
realistic budget for USAID?

   Should USAID lean more heavily on its private sector partners to 
        help convey the value of development to the White House, 
        National Security Council and OMB?

    Answer. I believe that the efforts by the U.S. Agency for 
International Development (USAID) to reduce poverty, strengthen 
citizen-responsive governance, and help people and countries progress 
beyond assistance must advance our national security, economic 
prosperity, and national values. If confirmed, I look forward to 
working with Administrator Green to diversify USAID's partner base so 
the Agency engages with new actors--including those in the private 
sector--to work collectively to improve the delivery of foreign 
assistance and the impact of our development dollars.
    I also expect to speak with groups domestically to educate 
Americans across the country about the importance of development and 
humanitarian assistance. Most Americans believe that the foreign-
assistance budget represents between 20 and 30 percent of overall 
Federal spending. When they learn that it is less than one percent, and 
when they learn what we accomplish with that small investment and how 
it improves our national security, helps create economic opportunity 
for U.S. firms, and promotes American values, they can become some of 
our strongest advocates to the White House, the Congress, and beyond.

    Question 26. If confirmed, will you commit to working on improving 
perceptions within the Trump administration on USAID's value, and the 
value of development to advancing U.S. foreign policy objectives and 
national security?

    Answer. If confirmed, I will advocate within the administration for 
the resources that are critical to advancing the mission of the U.S. 
Agency for International Development, including promoting and 
demonstrating American values abroad, and advancing a free, peaceful, 
and prosperous world in which we are safer and more secure.
Rescission
    Question 27. This administration continues to take steps to 
drastically reduce our foreign aid, in direct contravention of 
Congressional intention. If confirmed, will you commit to advocating 
against these efforts, including OMB efforts to submit further 
rescission packages to Congress?

    Answer. If confirmed, I will be a strong advocate for the U.S. 
Agency for International Development, to ensure it has the tools and 
resources needed to fulfill its mission in advancing U.S. national 
security, U.S. economic prosperity, and American values. I look forward 
to working with the interagency and the Congress to further our shared 
objectives.
Policy on Only Providing U.S. Foreign Assistance to ``Our Friends''
    Question 28. This week, at the United Nations General Assembly 
meeting, President Trump echoed a call he made in his 2018 State of the 
Union to only provide foreign assistance to ``our friends.'' What do 
you think the President means when he refers to ``our friends''?

   If you do not know, would you ask the President, or the White House 
        what defines ``our friends'' and include the answer in your 
        response to these questions?
   Do you believe U.S. foreign assistance should be conditioned on how 
        countries vote at the U.N.?
   To the best of your knowledge has USAID received or requested any 
        policy guidance from the White House on the ``our friends'' 
        policy the President recently restated?
   If so will you please articulate this policy to the committee?
   Is USAID following any orders that reflect the President's wishes 
        with respect to this statement?
   How do you believe a policy that ``ensure[s] American foreign 
        assistance dollars always serve American interests, and only go 
        to our friends'' would, or should, be carried by USAID?
   Do you believe the U.S. should limit diplomatic and development 
        engagements to our ``friends''?
   Who are our ``friends''?
   Would you agree that disengaging with a number of around the world 
        could create opportunities for our global competitors like 
        Russia and China, or extremist elements like Boko Haram and 
        ISIS, to fill the void we create?

    Answer. As echoed in President Trump's remarks before the United 
Nations (U.N.) General Assembly (UNGA), the United States should always 
seek strong and sovereign global partners. The U.S. Agency for 
International Development (USAID) can be most-effective in its 
development efforts by supporting countries on their Journeys to Self-
Reliance, by building enduring partnerships and cultivating fellow 
donors.
    I have not received any information from the White House regarding 
the President's remarks at UNGA. I believe that foreign aid is integral 
to promoting our foreign-policy objectives. Helping our allies is 
important, but we must also recognize that sometimes foreign aid can be 
useful to create and cultivate potential new allies in the future.
    For example, I understand that USAID is committed to helping civil 
society and defenders of human rights in Cuba, even though, according 
to the Department of State, Cuba voted with the United States 17 
percent of the time in 2017 at the U.N. In my view, we should not 
automatically cut funds to programs in a country just because its 
government votes against us at the U.N. I understand the money USAID 
spends in Cuba does not go to the Castro regime, but precisely the 
opposite: it helps the Cuban people, especially the families of 
dissidents and political prisoners. I see this type of support as in 
the national-security interest of the United States. I believe the 
Trump administration is committed to helping the Cuban people, as shown 
by the President's National Security Presidential Memorandum NSPM-5 of 
June 16, 2017, ``Strengthening the Policy of the United States Toward 
Cuba,'' which clearly supports programs to build democracy in Cuba.
    We all know that development needs will always be greater than 
available resources, and the U.S. Government will have to make 
strategic funding decisions about where to focus its resources. By 
using a data-driven approach, I believe USAID will be able to 
articulate, from a development perspective, the countries that possess 
the greatest capacity for, and commitment to, managing and financing 
their own development, as well as the key barriers to this self-
reliance. By using these data, I foresee that USAID can strategically 
focus its investments to help countries to develop strong and resilient 
economies and societies.
Foreign Assistance Review
    Question 29. It is my understanding that the National Security 
Council and OMB are undertaking a review of U.S. Foreign Assistance. 
What do you believe is motivating this review?

   Will you pushback against any claims that devalue or distort the 
        impact of development assistance that maybe made in this 
        forthcoming report?

    Answer. I am also aware the Trump administration is undertaking a 
review of U.S. foreign assistance, although I have not been involved in 
the process.
    I understand the U.S. Agency for International Development (USAID) 
is constantly reviewing its use of foreign assistance to ensure it is 
being an effective steward of taxpayer dollars, and to ensure that its 
programs advance U.S. national security, U.S. economic prosperity, and 
American values.
    If confirmed, I would support any thoughtful review of assistance, 
especially if it is focuses on improving the effectiveness and 
efficiency of USAID.
Defense, Diplomacy, and Development
    Question 30. The ``Three Ds--Defense, Diplomacy, and Development,'' 
is a longstanding approach the U.S. has taken to executing U.S. foreign 
policy. What is your opinion of the Three Ds--Defense, Diplomacy and 
Development and what is vision to elevate both diplomacy and 
development in an administration where generals have driven national 
security and foreign policy thus far?

   Do you agree that each of the Three Ds--Defense, Diplomacy and 
        Development are separate and equal tools in the President's 
        foreign policy toolkit?

    Answer. I support the defense, diplomacy and development ``Three 
D's'' approach to international affairs, and I agree that each of the 
``Three D's'' is an important tool in the President's national-security 
and foreign-policy toolkit. I had the chance to see the importance of 
all ``Three D's'' first-hand while serving as a Foreign Service Officer 
at the U.S. Department of State. I believe the U.S. Agency for 
International Development has a critical role to play in our national 
security, and, if confirmed, I will be a forceful advocate for 
development and diplomacy in the interagency.
Diplomacy, Development and National Security
        Effective international development fosters stability, 
        generates goodwill, and creates opportunities in developing 
        countries. The (December) 2017 National Security Strategy 
        acknowledges this fact by stating: ``Some of the greatest 
        triumphs of American statecraft resulted from helping fragile 
        and developing countries become successful societies. These 
        successes, in turn, created profitable markets for American 
        businesses, allies to help achieve favorable regional balances 
        of power, and coalition partners to share burdens and. helped 
        create a network of states that advance our common interests 
        and values.''

    Question 31. If confirmed, how will you support the elevation of 
development as an equal and relevant tool to diplomacy within the State 
Department, at the National Security Council and in discussions across 
the White House?

    Answer. Every country is on its own Journey to Self-Reliance, and 
the presence of the U.S. Agency for International Development (USAID) 
as part of each larger U.S. Embassy community, is tailored to each 
country's Journey. While USAID has general program areas (i.e., 
education, economic growth, maternal/child health, etc.) the success of 
each type of development program in each country is highly dependent on 
where that country is on its Journey. I understand that USAID is 
focusing on data-driven results, and I think that an open discussion of 
what this means and how it differs from diplomacy is important, as it 
will differentiate the work done by the Department of State and that 
done by USAID. Additionally, when the work done by USAID's partners is 
successful, these results should speak for themselves, and thereby help 
to maintain development as an equal and relevant tool in the national-
security toolbox.
    With the elimination of the ``Development'' Directorate within the 
National Security Council, many Congressionally endorsed Presidential 
Initiatives (like Power Africa and Feed the Future) that have 
significant development outcomes have been neglected.

    Question 32. If confirmed, will you support these important 
initiatives and elevate their use as a tool for both national security 
and American prosperity?

    Answer. If confirmed I commit to supporting Power Africa, Feed the 
Future, and other important Presidential initiatives, such as the 
President's Emergency Plan for AIDS Relief and Malaria Initiative.
    I am a strong supporter of the work of the U.S. Agency for 
International Development (USAID) in food security, and thank this 
committee for its bipartisan support for Feed the Future. I understand 
that since Feed the Future started, an estimated 23.4 million more 
people are living above the poverty line, 3.4 million more children are 
living free of stunting, and 5.2 million more families no longer suffer 
from hunger. Feed the Future is a critical program, as investments in 
resilience and food security help combat the root causes of hunger and 
poverty, build more sustainable economies, and champion local solutions 
and entrepreneurs.
    I also believe Power Africa has been a valuable and successful 
program--every dollar that USAID has invested in Power Africa projects 
has attracted over $50 in private-sector resources, and the initiative 
has leveraged over $16 billion in private-sector resources to projects 
to date, including through engagement with over 70 American companies. 
I believe energy is an area in which the United States has a 
comparative advantage in development, and hope to see USAID replicate 
similar efforts in other parts of the world. If confirmed, I am 
interested in better understanding how we can use Power Africa and 
other Presidential initiatives to incentivize good policies, capacity-
building, citizen-responsive governance, open markets, and private 
enterprise in our partner countries by leveraging the financing and 
expertise of the American private sector.

    Question 33. The 2017 National Defense Authorization Act includes 
several provisions (Sections 335, 583, and 1075), which illustrate a 
link between defense, diplomacy and development in preserving human 
rights, mitigating conflict and natural disasters, and protecting 
national security interests. If confirmed, how will you work across the 
Three Ds to recalibrate the National Security Strategy, and embrace a 
strategic approach to democracy, human rights and conflict being a 
strategic and national security interest of America?

    Answer. I am broadly very supportive of the defense, diplomacy and 
development (``Three Ds'') approach, as illustrated by the President's 
National Security Strategy and the Department of State-U.S. Agency for 
International Development (USAID) Joint Strategic Plan. These documents 
show that development is a core component, along with defense and 
diplomacy, of America's national-security and foreign-policy toolkit. 
Each of the ``Three Ds'' is critical to addressing strategically the 
challenges related to threats to democracy and human rights, as well as 
increased conflict around the world. An example of the ``Three Ds'' 
approach in practice is the recent Stabilization Assistance Review 
(SAR), endorsed by the leadership of the Departments of State and 
Defense and USAID. I believe the SAR articulates a coordinated approach 
to recognizing the strategic objectives of the U.S. Government in 
unstable contexts. If confirmed, I would be committed to continuing 
cooperation and coordination across the ``Three Ds'' in support of U.S. 
national-security interests.

    Question 34. Do you agree that improving economic opportunity, 
health outcomes, food security, and addressing natural resource 
scarcity in developing and fragile countries reduces insecurity and 
instability risks?

    Answer. Yes. I fully agree that addressing national-security 
challenges requires work to improve economic opportunities, health 
outcomes, and food security, and to remove barriers to accessing 
natural resources. If confirmed, I will continue to prioritize the work 
of the U.S. Agency for International Development in these areas.
Presidential Initiatives
        U.S. foreign policy has prioritized diplomacy and development 
        activities that engage public and private sector partners in 
        eradicating global health pandemics, feed the world through 
        agriculture and invest in small farmers, heighten trade and 
        economic development, elevate the full rights of women and 
        marginalized people and expand access to electricity to reduce 
        poverty and power market growth.

    Question 35. What priorities will you advance?

    Answer. If confirmed, I commit to working to engage both the public 
and private sectors in addressing the development challenges faced by 
countries on their Journeys to Self-Reliance. As I noted in my written 
testimony, if confirmed, I will ensure the U.S. Agency for 
International Development maintains its focus on the promotion of 
democratic values and free elections, as the role of democracy and 
citizen-responsive government is critical to the Journey to Self-
Reliance. Women's issues, including economic empowerment and health, 
are other areas to which I am fully committed, and which should remain 
priorities for USAID.
    I also believe that our development projects must leverage the 
application of technology and technological solutions. Using technology 
can sometimes shorten timelines on projects, reduce the use of 
resources, and scale results. However, technology alone is not a 
solution--the capacity-building associated with technology-driven 
solutions, when directed at targeted countries, will enable citizens of 
those countries to sustain the technology-driven solutions. An infusion 
of technology into the Agency's work, when combined with technical 
assistance, will be another priority for me, if confirmed.

    Question 36. Do you support the extension of the following 
Presidential Initiatives: Power Africa, Feed the Future, the Young 
African Leaders Initiative, Let Girls Learn, and the President's 
Emergency Plan for Aids Relief?

    Answer. In preparing for my hearing, I received briefings on most 
of these initiatives, and, if I confirmed, I look forward to working 
with Administrator Green, and with Congress, to ensure the U.S. Agency 
for International Development (USAID) maintains gains in these areas, 
and continues to address global health, food security, education, the 
empowerment of women and girls, and other development challenges 
throughout the world. Regardless of the specific program, sector, or 
region, I pledge to do my utmost to ensure USAID remains a good steward 
of taxpayer dollars, and that the Agency uses the funding Congress 
appropriates it to maximize measurable impact on the ground, advance 
our national security, enhance U.S. economic prosperity, and promote 
American values.
Gender Equity
        It has come to my attention that USAID has undertaken some 
        steps to alter the terminology in gender-equity programming.

    Question 37. Do you believe there is a distinction between gender 
and sex?

    Answer. Yes.

    Question 38. What is your understanding of what gender equity 
means?

    Answer. ``Gender-equity'' is the process of being fair to women and 
men, boys, and girls. To ensure fairness, measures need to compensate 
for cumulative economic, social, and political disadvantages that 
prevent women and men, boys, and girls from operating on a level 
playing field.

    Question 39. What do you believe is the difference between women's 
equality and gender equity?

    Answer. I understand that the U.S. Agency for International 
Development uses the term ``gender-equality'' to mean the state or 
condition that affords men and women equal enjoyment of human rights, 
socially valued goods, opportunities, and resources. Genuine equality 
means more than parity in numbers or laws on the books; it means 
expanded freedoms, and improved overall quality of life for all people. 
Reaching gender-equality requires working with women, men, boys, and 
girls to bring about changes in attitudes, behaviors, roles, and 
responsibilities. Women's empowerment is a critical part of gender-
equality. ``Gender-equity'' and ``gender-equality'' are different in 
that equity is the process, while equality is the result.
Diversity

    Question 40. If confirmed, what will you do to elevate and embrace 
the diversity of people, voices and backgrounds within the USAID's 
workforce?

    Answer. I know that one of the core values of the U.S. Agency for 
International Development (USAID) is inclusion. As Administrator Green 
has said, a diverse workforce and differing viewpoints makes the Agency 
stronger and more creative, and improves its effectiveness. I believe 
that diversity is critical across USAID, but particularly in the 
Foreign Service, which is the American face of USAID around the world.
    I believe that diversity of viewpoints in the workplace is crucial. 
We should not discount anyone's opinion because he/she does not conform 
to everyone else's point of view. This is how organizations generate 
the best ideas, recognize the best (sometimes shy) employees, and make 
progress. It is also important for our Foreign Service cadre to 
demonstrate the value of diversity in thinking to the rest of the 
world, and, if confirmed, I would strongly champion this approach.

    Question 41. If confirmed, will you commit to fully support the 
full funding and maintenance of the Payne Fellows program, and 
diversity initiatives at large within the USAID?

    Answer. Yes. I know that the U.S. Agency for International 
Development (USAID) is proud to support the Donald M. Payne 
International Development Fellowship program, which encourages the 
application of members of minority groups who have historically been 
under-represented in international development careers and those with 
financial need to complete their graduate programs and join USAID as 
Foreign Service Officers.
    I understand that, since the Payne Fellowship began in 2012, USAID 
has sworn 18 Payne Fellows as Foreign Service Officers, including six 
in 2018, and that the Agency continues to recruit graduate students 
into the program. If confirmed, I commit to continuing to support the 
Donald M. Payne International Development Fellowship program.

    Question 42. If confirmed, what will you do to support more 
minority candidates applying and successfully receiving promotions 
within the Senior Foreign Service?

    Answer. I understand that one of the roles of the Deputy 
Administrator is to sit on the panel that reviews promotions to the 
Senior Foreign Service at the U.S. Agency for International Development 
(USAID). If confirmed, I would take an active role in ensuring that 
qualified officers, regardless of race, gender, religion, etc., receive 
fair consideration for promotion into the senior ranks of the Foreign 
Service at USAID.
Food Security
        We have seen in regions like the Horn of Africa skirmishes over 
        grazing lands erupt, and food insecurity and extreme drought in 
        places like Syria has been pointed to as a contributing factor 
        to the violence that we see today. This violence in turn is 
        ramping up food insecurity. There are currently four countries 
        facing man-made famine or near famine conditions, stemming from 
        prolonged instability, war, and conflict.

    Question 43. If confirmed, what will you do to elevate the food 
continuum of food assistance (humanitarian assistance), resilience 
(both humanitarian assistance and development), food security 
(development assistance), and agricultural trade and investment 
(development assistance and development finance)?

    Answer. I believe it is important to strengthen the links between 
the investments the U.S. Agency for International Development (USAID) 
makes in agricultural trade and entrepreneurship, resilience, food 
security, water and sanitation, humanitarian assistance and 
stabilization. I understand that as part of the Transformation designed 
by Administrator Mark Green, USAID is proposing several structural 
reforms to accomplish this task, including by establishing the Bureaus 
for Humanitarian Assistance, Conflict-Prevention and Stabilization, and 
Resilience and Food Security. The proposal includes the creation of an 
Associate Administrator for Relief, Resilience and Response (R3) to 
oversee these Bureaus, which I believe will further strengthen the 
continuum from humanitarian assistance, to resilience, and to food 
security. If confirmed, I look forward to working with the 
Administrator and Congress to implement these changes.

    Question 44. Is it in the U.S. interest to help lead and initiate 
programs designed to improve food security?

    Answer. Yes. As populations soar in many of the world's most-
fragile and impoverished regions and new stresses and unplanned shocks 
increase the risk of food-insecurity, investments in the creation of 
strong, resilient food systems are vital to U.S. national security.

    Question 45. Is it in the U.S. interest to work towards addressing 
the causes of food insecurity, including growing scarcity of natural 
resources?

    Answer. Yes. I understand that improving the management of natural 
resources is a key component of addressing food-insecurity sustainably, 
as reflected in the U.S. Government's Global Food-Security Strategy 
(GFSS). Continued stress on ecosystems, marine environments, fisheries, 
and the land, water, and natural resource base upon which productive 
agriculture relies, as well as the complex intrastate governance 
challenges related to water resources, pose challenges to food 
security. If confirmed, I look forward to ensuring that the U.S. Agency 
for International Development implements the priorities outlined in the 
GFSS strategically to reduce poverty and hunger.
The Risks Associated with Politicizing U.S. International Development
        The slogan ``America First'' advances a political message that 
        emphasizes the advancement of singular U.S. interests in our 
        foreign policy that runs the risk of complicating U.S. 
        development initiatives. Successful international development 
        programs depends upon the ability of our private sector and NGO 
        implementing partners and the credibility they have abroad. 
        ``America First'' risks putting forward the appearance that U.S 
        .companies and NGOs are political operatives of the U.S. 
        Government, and puts them at greater risk of being targeted by 
        the extremist influences their work is counteracting.

    Question 46. What is your understanding of the differences between 
political and strategic objectives in U.S. foreign policy?

   Do you believe U.S. development assistance should only be used to 
        advance political objectives in U.S. foreign policy?
   When is it appropriate to use development assistance to advance 
        political priorities in foreign policy?
   Should the delivery of U.S. development assistance be a shared 
        endeavor with NGO and private sector partners?
   How do you think foreign leaders, including U.S. adversaries who 
        are competing with us for influence in vulnerable and strategic 
        countries, interpret and process the ``America First'' 
        doctrine?
   Do you believe the U.S. private sector should be political agents 
        of the Trump administration?
   Do you understand why U.S. development partners may be anxious 
        about how ``America First'' complicates their work and risks 
        giving the appearance that they are political agents at the 
        service of the United States Government when they help 
        administer development assistance on-the-ground?
   If confirmed, will you commit to working with development 
        stakeholders to understand better the value of development 
        assistance and the consequences of overexposure of the 
        ``America First'' doctrine?

    Answer. The President has said, ``America First does not mean 
America alone,'' but he has also been clear that the United States is 
the largest donor of foreign aid, and has called on other countries to 
step up their development contributions.
    I believe that U.S. development assistance is critical to advancing 
our national security and economic prosperity, and to promoting our 
values of democracy, human rights, and freedom abroad. I also believe 
that partners--including non-governmental organizations, faith-based 
organizations and the private sector, and academia--are critical to the 
development and humanitarian work of the U.S. Agency for International 
Development (USAID). I am pleased that USAID is working to diversify 
its partner base to expand work with the private sector and faith-based 
organizations, and if confirmed, I will support this important effort.
    Power Africa has shown us the impact of the private sector--every 
dollar USAID has invested in Power Africa projects has attracted over 
$50 in private-sector resources, and the initiative has leveraged over 
$16 billion in private-sector resources to projects to date, including 
through engagement with over 70 American companies. I believe energy is 
an area in which the United States has a comparative advantage in 
development, and hope to see USAID replicate similar efforts in other 
parts of the world. If confirmed, I am interested in better 
understanding how we can use Power Africa and other Presidential 
initiatives to incentivize good policies, capacity-building, citizen-
responsive governance, open markets, and private enterprise in our 
partner countries by leveraging the financing and expertise of the 
American private sector. The potential to transfer the Power Africa 
model into other sectors and other geographic areas is something I 
would be interested in exploring, if confirmed. The use of best 
practices and proven successes should help to guide USAID as it 
considers scaling a diverse range of programs worldwide.
    I also believe the people who receive our assistance should know it 
comes from the American people, and this is why I strongly support 
branding our aid.
Oversight and Vetting
    Question 47.  Has anyone ever made an allegation of sexual 
harassment, gender or racial discrimination, hostile work environment, 
or wrongful termination against you, whether through an informal 
process, or a formal complaint?

    Answer. No, not to my knowledge.

    Question 48. If so, what was the nature of the allegation, and how 
was it resolved?

    Answer. Not applicable (N/A).

    Question 49. Have you entered into any settlements (including but 
not limited to private mediation or arbitration) involving a claim of 
sexual harassment, gender or racial discrimination, hostile work 
environment, or wrongful termination against you?

    Answer. No.

    Question 50. If so, please include the nature of the claim and the 
settlement amount.

    Answer. N/A

    Question 51. Has anyone ever made an allegation of sexual 
misconduct or assault against you?

    Answer. No, not to my knowledge.

    Question 52. If so, what were the circumstances and how was it 
resolved?

    Answer. N/A

    Question 53. Have you ever taken any disciplinary action against 
any employee that you supervised in response to any allegations of 
sexual harassment, gender or racial discrimination, or hostile work 
environment in the workplace?

    Answer. No.

    Question 54. If so, please describe your role and the actions 
taken.

    Answer. N/A

    Question 55. What will you do to address any claims of sexual 
harassment, discrimination, hostile work environment, or sexual 
misconduct at USAID?

    Answer. If confirmed, I will follow the policies of the U.S. Agency 
for International Development (USAID) to prevent sexual harassment, 
discrimination, hostile work environments, and sexual misconduct.
    I understand USAID has zero tolerance for discrimination and 
harassment, including sexual harassment, in the workplace, and takes 
all accusations seriously. I was pleased to learn that USAID holds all 
managers accountable for living by, and promoting, a zero-tolerance 
work environment. I have read that USAID's policy is that employees 
found by the Agency to have subjected another employee to 
discrimination or unwelcome conduct of a sexual nature, whether that 
conduct was found to meet the definition of sexual harassment or not, 
are subject to appropriate action, which can range from a letter of 
warning to separation for cause. If confirmed, I commit to following 
this policy.
    I understand that, in September 2017 and again in September 2018, 
Administrator Green issued USAID's Policy Statement on Equal Employment 
Opportunity, Harassment, and Retaliation, which makes clear that 
discrimination and harassment of any form, including sexual harassment, 
are unacceptable, and will not be tolerated. I have received 
information that USAID has clear channels to report improper behavior, 
and, if confirmed, I will follow these policies. Specifically, I 
understand that the Agency released a Flowchart on Reporting Sexual 
Harassment in June 2018 to better inform employees on how to report an 
incident, and whom to contact, and on November 30, 2017, the Agency 
disseminated an Agency Notice, entitled, ``Facts About Sexual 
Harassment,'' that explains the process for how to report allegations 
of sexual harassment. Additionally, staff have informed me that USAID's 
harassment policy is posted and available to all employees on the 
Agency's intranet site. Furthermore, I have read that USAID launched a 
mandatory, Agency-wide sexual harassment training; released an 
enhanced, mandatory training to counter trafficking in persons; and 
piloted a new training for field staff on unwanted attention/sexual 
harassment and bystander intervention.
    I understand that USAID's Office of Civil Rights and Diversity 
(OCRD) is the responsible entity within USAID to receive and process 
reports of discrimination, harassment (including sexual harassment), 
and hostile work environments, and provides guidance on, and oversight 
of, the complaint process. I understand managers, supervisors, and 
other management officials (e.g., Administrative and Management 
Services Officers, Executive Officers, and Resident Legal Officers) 
must be alert to issues that might result in allegations of 
discrimination or harassment, and must report to OCRD, within 24 hours, 
any allegations of prohibited harassment. If confirmed, I commit to 
working with OCRD to ensure the Agency handles reports in the 
appropriate fashion.
    I further understand that USAID's Office of Employee and Labor 
Relations (ELR) may investigate referrals from the Office of the 
Inspector General, OCRD, the Office of Security, Staff Care and 
individual employees relative to complaints of this nature, and that 
ELR refers reports that are outside of the purview of the office to the 
appropriate unit for investigation and adjudication. If confirmed, I 
commit to ensuring this process is followed.
    Finally, I understand USAID's zero tolerance for sexual misconduct, 
including harassment, exploitation or abuse of any kind, extends to the 
Agency's implementing partners. I know that Administrator Green 
established the Action Alliance for Preventing Sexual Misconduct 
(AAPSM) in March 2018, an intra-Agency group charged with leading 
USAID's work on addressing sexual misconduct in all forms, including 
harassment, exploitation and abuse. I have read that, as part of the 
AAPSM launch, the Administrator hosted a Forum on Preventing Sexual 
Misconduct, which brought together senior USAID staff, the USAID 
Inspector General, and representatives from key partners--including 
non-governmental organizations, for-profit contractors, and United 
Nations agencies. I have received a briefing that the Agency has 
revised standard provisions for grants and contracts to clarify that 
implementers' employee codes of conduct must be consistent with 
international standards on protection from sexual exploitation and 
abuse, and issued guidance to acquisition and assistance implementing 
partners to reaffirm USAID's zero tolerance for sexual exploitation, 
abuse and fraud. I know that allegations of sexual exploitation and 
abuse that involve employees of USAID's grantees or contractors must be 
reported to the relevant USAID Agreement or Contracting Officer. I have 
read press reports that Administrator Green reiterated USAID's 
commitment to preventing sexual exploitation and abuse by endorsing the 
G7 Whistler Declaration on Protection from Sexual Exploitation and 
Abuse in International Assistance, and led the drafting and issuance of 
the Tidewater Joint Statement on Combating Sexual Exploitation and 
Abuse in the Development and Humanitarian Sectors.

    Question 56. Do you commit to ensuring the Department's policies 
are clearly communicated and that employees know how to report any 
complaints?

    Answer. Yes.

    Question 57. Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government?

    Answer. Yes.

    Question 58. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. Retaliation, blacklisting and other prohibited personnel 
practices are never acceptable, and if confirmed, I commit to ensuring 
that the U.S. Agency for International Development (USAID) will not 
tolerate them.
    Equal-employment opportunity (EEO), diversity, and inclusion are 
among the Agency's core values. USAID is dedicated to removing 
impediments to inclusion by enforcing EEO laws and policies, promoting 
diversity, and providing an environment free of discrimination and 
harassment in which all employees are valued, and can contribute to 
their fullest potential.
    I understand that USAID follows the statutorily required process 
for redress for employees who have faced harassment, including sexual 
harassment, which includes set timeliness and protections against 
retaliation. I have received assurances that, when deemed necessary, 
the Agency will use all resources to ensure the alleged offender and 
the complainant have limited or zero contact. I know that USAID is 
legally required to keep the identities of victims and alleged 
offenders confidential, except as necessary to complete an inquiry, and 
that the Agency makes employees subject to disciplinary actions if they 
are found to have engaged in discrimination or harassment. If 
confirmed, I will follow these processes.
    Additionally, I understand that USAID provides mandatory training 
on the NO FEAR Act to all employees every two years as required by law, 
and the Agency's Office of Civil Rights and Diversity (OCRD) conducts 
anti-discrimination and anti-harassment trainings. I have received 
information that, as part of USAID's onboarding program, employees 
receive harassment training upon entrance on duty--which is vitally 
important. If confirmed, I commit to taking this training upon assuming 
the job.

    Question 59. Do you commit to report any concerns you have about 
waste, fraud, or abuse to the USAID Inspector General?

    Answer. Yes, when that is the appropriate channel. I am committed 
to upholding high standards of accountability, and, if confirmed, will 
not tolerate waste, fraud, or abuse.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Bonnie Glick by Senator Benjamin L. Cardin

USAID Redesign Topics
  Global Development Lab
        The Global Development Lab increases the application of 
        science, technology, innovation, and partnerships to achieve, 
        sustain, and extend USAID's impact toward solve development 
        challenges faster and cheaper in support of U.S. foreign policy 
        goals. One of the most important aspects of the Lab are grants 
        and private sector support and engagement on product research 
        and development.

    Question 1. Will you commit to ensuring all of the authorities and 
functions of the Lab in its current form will be carried over into the 
redesigned USAID?

    Answer. I spent my last five years at IBM in the company's storied 
Research Division. It was during this time in particular that I saw the 
power of science and innovation to create what IBM calls a ``Smarter 
Planet.'' Indeed, the work that I did, in collaboration with scientists 
from IBM's labs around the world, but principally in Latin America, 
focused on infusing problems with solutions related to technology. Much 
of the work I did was specifically related to semiconductor technology 
and microelectronics, and during my time in Research I co-authored 
three patents, which are currently working their way through the patent 
approval process. I believe in science, and in the application of 
science and technology to solve problems. I also believe that global 
scientific collaboration and a diversity of viewpoints are critical to 
finding the best solutions to solve some of the world's most-
complicated problems.
    If confirmed, I will work to ensure that the application of 
science, technology, innovation, and partnerships to solve development 
challenges will remain a priority for the Agency, under both the 
current and proposed structures. By better integrating, and, in some 
cases, elevating, those functions to combine them with other parts of 
the Agency that are also working on similar issues, I believe the U.S. 
Agency for International Development (USAID) can be even more effective 
in this space.
  DCHA
        The administration's proposed plan to redesign USAID 
        significantly changes the agency's organizational structure. 
        For example, the current Democracy, Conflict and Humanitarian 
        Affairs (DCHA) Bureau's functions will now be spread across 
        three new bureaus, with most of its functions consolidated with 
        the Offices of Foreign Disaster Assistance and Food for Peace 
        in the new Bureau for Humanitarian Affairs.

    Question 2. Do you expect that the current DCHA bureau's 
responsibilities will be completely transferred across the new 
organizational structure?

   What challenges do you anticipate?
   How do you believe DCHA matters will be better handled across three 
        bureaus?
   Do you expect that the current DCHA bureau's responsibilities will 
        be completely transferred across the new organizational 
        structure?

    Answer. Yes. The functions and responsibilities that are currently 
carried out by DCHA will move to the proposed Bureaus for Humanitarian 
Assistance; Conflict-Prevention and Stabilization; and Development, 
Democracy, and Innovation.

    Question 3. What challenges do you anticipate?

    Answer. With any significant reorganization effort there will be 
challenges around implementation and managing change, among our 
employees, stakeholders, and partners. If confirmed, I will do my best 
to support our staff from DCHA and other Bureaus during this 
transition.

    Question 4. How do you believe DCHA matters will be better handled 
across three bureaus?

    Answer. I understand that under the Transformation, the new 
Associate Administrator for Relief, Response and Resilience (R3) would 
oversee the proposed Bureaus for Humanitarian Assistance, Conflict-
Prevention, and Resilience and Food Security. The intent of this 
proposed structure is to strengthen further the programming funded by 
the U.S. Agency for International Development (USAID), by making it 
more efficient and holistic across the spectrum of preparing for, 
preventing, responding to, and mitigating disasters. The Agency also 
believes this would elevate USAID's stature with interagency colleagues 
on these issues.
    Combining USAID's humanitarian assistance into programs into a 
single Bureau would strengthen and elevate the Agency's stature, both 
within the U.S. Government and with our international partners. The 
proposed Bureau for Humanitarian Assistance would advance USAID's goal 
of seamlessly delivering international disaster aid, which would better 
serve U.S. Government foreign policy interests, and people in need 
throughout the world. The Bureau would achieve efficiencies by 
eliminating redundancies between the Offices of Foreign Disaster 
Assistance and Food for Peace and optimizing their resources through 
joint operations, and by further integrating food and non-food 
humanitarian assistance.
    Currently, USAID implements over 70 percent of its programs in 
countries considered fragile or conflict-vulnerable. The proposed 
Bureau for Conflict Prevention and Stabilization would better 
coordinate the Agency's prevention, stabilization, and response efforts 
by combining small, separate offices with overlapping functions. This 
would enhance USAID's operational capabilities in responding to crises, 
including through a strengthened focus on preventing violent extremism.
    The proposed Democracy, Development, and Innovation Bureau would 
elevate the Agency's democracy and governance programming through the 
creation of a Deputy Assistant Administrator to oversee this portfolio. 
Democracy and governance underpins sustainable development, but in the 
current structure conflict and immediate humanitarian responses often 
overshadow our programs in democracy and governance.
    While resilience and food security do not currently fall entirely 
under the oversight of DCHA, I understand that while the Transformation 
proposals are pending Congressional approval, DCHA looks forward to 
deepening and expanding intra-agency coordination around resilience and 
food security programming to achieve the goals and objectives of the 
U.S. Global Food Security Strategy.
  Budget
        One of the objectives of USAID's proposed redesign is to 
        strengthen budget and policy coherence within USAID.

    Question 5. Will USAID have an increased ability to determine aid 
budgets?

   How will the proposed reforms change USAID's relationship with the 
        State Department's Office of U.S. Foreign Assistance Resources 
        (F) to strengthen development effectiveness?

    Answer. While I was not involved in the Transformation process 
personally, I have been briefed on it, and believe the proposals put 
forward will improve the way the U.S, Agency for International 
Development (USAID) performs its budget and policy functions. I also 
believe USAID's proposed new structure will strengthen the Agency's 
posture in interagency discussions, particularly when working with the 
State Department. I understand that the Secretary of State, through the 
Office of Foreign Assistance Resources (F), will continue to provide 
oversight for, and serve as the point of coordination for the State 
Department on, all foreign assistance.
Congressional Notifications
        USAID has responded to directives in FY17, FY18, and FY19 
        appropriations bills to engage and notify Congress of any 
        reorganization.

    Question 6. How will consultation with Congress, the development 
community, country partners, and USAID's own Missions be maintained or 
strengthened through implementation of this effort? Please be specific.

    Answer. I understand the employees and external stakeholders of the 
U.S. Agency for International Development (USAID) have been critical 
voices in the development of the Agency's Transformation, and that they 
will continue to play an indispensable role throughout the 
implementation and evaluation of the Transformation's structural and 
other changes. I further understand USAID's leadership continues to 
consult with Congress, as the Congressional Notifications for the 
Transformation are currently pending approval.
    While none of the structural proposals of the Transformation are 
specifically geared towards strengthening consultation with Congress, 
the development community, country partners, or USAID's own Missions, I 
am personally committed to strengthening coordination and fostering 
consultation, internally and externally.
    As the Agency moves into the implementation phase of the proposed 
Transformation (pending Congressional approval), if confirmed, I commit 
to keeping Congress, the development community, country partners, and 
USAID's own Missions informed on the implementation of the package of 
reforms.
Foreign Assistance Cuts
    Question 7. Do you support the president's budget requests to slash 
foreign assistance funding? For example, the FY19 budget request 
proposed a more than 30 percent cut.

   Do you believe such cuts help USAID effectively carry out its 
        mission?

    Answer. As you know, I was not involved in the process to develop 
the proposed budget for Fiscal Year 2019. I understand that, in a more 
fiscally constrained environment, the U.S. Agency for International 
Development (USAID) is being asked to do more with less. The Agency is 
focusing on its core priority-advancing America's interests and 
fostering self-reliance.
    I am grateful for the funding that Congress provides to support the 
U.S. Government's operations and programs, at the State Department and 
USAID. If confirmed, I look forward to continuing discussions with you 
and your colleagues about funding for our diplomacy and foreign 
assistance programs.
Foreign Aid Transparency and the Proposed BUILD Act
        The BUILD Act significantly reforms how the U.S. Government 
        will engage in foreign development finance. The Foreign Aid 
        Transparency and Accountability Act I co-authored with Senator 
        Rubio created guidelines for measurable goals, performance 
        metrics, and monitoring and evaluation plans for foreign aid 
        programs and to increase transparency by codifying and 
        increasing the amount of information posted online.

    Question 8. If the BUILD Act becomes law, how will you ensure that 
FATAA standards are integrated into BUILD Act's implementing and 
monitoring and evaluation efforts?

    Answer. I understand the U.S. Agency for International Development 
(USAID) fully supports, and is committed to the goals of, the Foreign 
Aid Transparency and Accountability Act, and will work within the 
interagency to integrate them into the International Development 
Finance Corporation, if Congress passes, and the President signs, the 
BUILD Act.
Human Rights
    Question 9. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Among the duties of my first overseas tour in Addis Ababa, 
Ethiopia was to serve as the U.S. Embassy's Human Rights Officer and to 
draft our submissions on Ethiopia to the State Department's annual 
Report on Human Rights. I was the only Foreign Service Officer in the 
Embassy trained in the Amharic language which gave me access to 
populations around the country who did not speak English. I frequently 
traveled around the country, either on my own or with a colleague from 
another foreign embassy (often the The Netherlands), to investigate 
reported violations of human rights committed by the recently deposed 
dictatorship, as well as those attributed to the new transitional 
government. These included politically motivated imprisonments, 
torture, false imprisonment, and others. I reported on these up the 
chain of command at the State Department. The American Ambassador in 
Ethiopia took particularly seriously the human-rights violations being 
committed by the new Ethiopian Government, and raised concerns on a 
regular basis with the fledgling leaders themselves, by using 
information I had gathered.
    Human rights and democracy relate to more than just political 
abuses. They have to do with the way individuals interact with each 
other, in the workplace, in communities, in countries. During my time 
in the non-profit sector, much of my work focused on international 
exchange programs designed to address populations who were vulnerable 
in their own countries. I ran programs for Iraqi university students 
from all parts of the country that were designed to build bridges 
across ethnic, religious, and cultural divides. Bringing more than 100 
Iraqi college students to the United States each year, breaking them up 
into four or five different, religiously/ethnically/geographically/
economically diverse cohorts, and sending them to study in universities 
across our country was a great way to promote understanding. This 
program brought together possible future leaders of Iraq, women and men 
who had never met before, and who would never have met in their own 
country. Through them, I saw a promising future Iraq. In 2016, when I 
convened a summit of the alumni of the program in Erbil, I was 
astounded to see how wonderfully the students had matured, and how they 
came to understand that the prejudices with which they were raised were 
dispelled when they had friends who represented previously ``hated'' 
communities.
    Similarly, I ran a program in which high-school-aged Pakistani 
girls came to the United States to participate in a science program 
with American girls at the State University of New York Polytechnic 
Institute in Albany, where they learned from leading scientists and 
professors. The opportunity for the brilliant young Pakistani girls to 
be exposed to a science environment in which they were not judged by 
their gender was new to them, and they went back to Pakistan convinced 
of the need to empower girls and to be spokeswomen for their gender in 
the sciences and medicine. I have no doubt they will do great things in 
computer science, medicine, and beyond.
    If confirmed, I will be committed to promoting human rights and 
democracy around the world because democracy underpins all of the work 
of the U.S. Agency for International Development.
Diversity
    Question. 10 What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. One of the core values of the U.S. Agency for International 
Development (USAID) is inclusion. We know a diverse workforce and 
differing viewpoints make us stronger and more creative. It also 
improves our effectiveness. Diversity is critical across USAID, but 
particularly in the Foreign Service, which is the face of USAID around 
the world.

    Question 11. USAID is proud to support the Donald M. Payne 
International Development Fellowship program, which encourages 
applications by members of minority groups who have historically been 
under-represented in international development careers and those with 
financial need to complete their graduate programs and join the Agency 
as Foreign Service Officers (FSOs).
    I understand that, since the Payne Fellowship began in 2012, 18 
Payne Fellows have been sworn in as USAID FSOs, including six in 2018. 
The Agency continues to recruit graduate students into the program. If 
confirmed, I commit to continuing to support the Payne Fellowship.
    Additionally, I understand that USAID's Development Diplomats in 
Residence Program (DDIR) Program, which places senior Foreign Service 
Officers at U.S. colleges and universities, conducts regional outreach 
and recruitment and establishes partnerships with Minority-Serving 
Institutions. The program particularly targets diverse potential 
candidates in the Agency's areas of under-representation.

    Question 12. What steps will you take to ensure each of the 
supervisors in the Agency are fostering an environment that is diverse 
and inclusive?

    Answer. A culture of diversity starts at the top and, if confirmed, 
I assure you I am committed to taking additional steps to ensure that 
supervisors at the U.S. Agency for International Development (USAID) 
are fostering an environment that is diverse and inclusive. If 
confirmed, I am committed to ensuring USAID's workforce reflects the 
diversity of America.
Conflicts of Interest
    Question 13. Do you commit to bring to the committee's attention 
(and the USAID Inspector General) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 14. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 15. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. I do not have any financial interests abroad, nor does my 
husband, nor do our two sons. My sister, Caroline Glick, lives in 
Israel, and has financial interests and investments there. I do not 
have any visibility into her finances.
             responses to follow-up questions submitted to 
               bonnie glick by senator benjamin l. cardin
        On October 4, 2018, I received your responses to the questions 
        I submitted for the record following your nominations hearing 
        on September 25, 2018. I asked a series of questions 
        surrounding the USAID Redesign and impacts on the current 
        Democracy, Conflict, and Humanitarian Affarirs (DCHA) Bureau's 
        functions, as they will now be spread across three new bureaus, 
        with most of its functions consolidated with the Offices of 
        Foreign Disaster Assistance and Food for Peace in the new 
        Bureau for Humanitarian Affairs. Please provide your personal 
        opinion on the following questions:

    Question 16. What challenges do you anticipate with the transfer of 
the DCHA bureau's responsibilities across the new organizational 
structure? Please elaborate on the specific challenges and how you plan 
to address them in your role as Deputy Administrator for USAID, if 
confirmed.

    Answer. As with any significant reorganization effort, there will 
be challenges around the implementation of the Transformation while 
managing change among the employees , stakeholders, and partners of the 
U.S. Agency for International Development (USAID). While the Offices of 
Foreign Disaster Assistance (OFDA) and Food For Peace (FFP) are 
coordinating their delivery of humanitarian assistance better than in 
the past, we need to ensure they are fully integrated in the proposed 
Bureau for Humanitarian Affairs. Working closely with staff through a 
consultative change-management process will be essential to optimize 
the effectiveness of the new Bureau, to build a shared culture, and, 
most important, break down the artificial and counterproductive barrier 
between food and non-food assistance.
    If confirmed as Deputy Administrator, I intend to work closely with 
the new proposed Associate Administrator for Relief, Response and 
Resilience (R3) and the R3 leadership team to monitor the 
implementation of the new Bureaus. I would help oversee the 
implementation of the Transformation, particularly as it relates to the 
proposed Bureau for Development, Democracy and Innovation, the Bureau 
for Global Health and the Regional Bureaus, which I would oversee in my 
role as Deputy Administrator, if confirmed.

    Question 17. How do you believe DCHA matters will be better handled 
across three bureaus? Please elaborate on how you believe the new 
structure will better serve the responsibilities and goals of the 
bureau with reasoning for your predictions.

    Answer. I understand that under the current structure of the Bureau 
for Democracy, Conflict and Humanitarian Response (DCHA), the 
leadership of DHCA spends the vast majority of its time responding to 
crises, in particular humanitarian emergencies. While middle management 
ably handles other DCHA responsibilities--priorities of the 
administration and the Agency such as democracy and governance, 
civilian-military relations, fragility and stabilization--the lack of 
time DCHA senior leadership can spend on these other topics remains 
problematic. Under the Transformation, creating the Bureaus for 
Humanitarian Assistance (HA), Conflict-Prevention and Stabilization 
(CPS), and Resilience and Food Security (RFS) would elevate each of 
these important issue sets, provide them each with Bureau-level 
leadership focused on their specific mandates, while also creating an 
overarching structure to enable deeper collaboration and a holistic 
approach to topics that cut across all three Bureaus.
    In addition to Bureau-level leadership, a new proposed Associate 
Administrator for Relief, Response and Resilience (R3) would oversee 
the proposed HA, CPS, and RFS Bureaus. I understand that the proposed 
R3 structure is intended to improve the Agency's ability to plan and 
operate in a holistic manner that improves humanitarian responses, 
responds adaptively to conflict, and reduces vulnerability to crisis 
and recurrent shocks. The rationale behind the R3 grouping of Bureaus 
recognizes the complex and intertwined nature of recurrent crises, 
fragility, and violent conflict, both causally and geographically. The 
proposed R3 ``family'' of Bureaus would enable the U.S. Agency for 
International Development (USAID) to elevate resilience and food 
security in the interagency, and strengthen the ability of the Agency 
to build the capacity of national systems (public or private) to 
respond to humanitarian crises.
    In addition to the new proposed leadership structure that would 
ensure tighter coordination across the proposed HA, CPS and RFS 
Bureaus, the planned structures of the individual Bureaus have their 
own advantages.
    The proposed Bureau for Humanitarian Assistance would combine the 
Offices of Foreign Disaster Assistance (OFDA) and Food For Peace (FFP) 
into a single Bureau, which would mirror the structure of most other 
government donor agencies and would elevate the stature of humanitarian 
assistance within the U.S. Government and with our international 
partners. Additionally, the HA Bureau would strengthen USAID's role as 
the lead Federal coordinator for international disaster assistance; 
unify USAID's humanitarian policy voice; and provide a cohesive 
approach to USAID's programming across the spectrum of preparing for, 
responding to, and mitigating and preventing disasters. The Bureau 
would achieve efficiencies by eliminating administrative redundancies 
between OFDA and FFP, which would optimize their resources through 
joint operations, and further integrate food and non-food humanitarian 
assistance.
    USAID currently implements over 70 percent of its programs in 
countries considered fragile or conflict-vulnerable. The proposed 
Bureau for Conflict Prevention and Stabilization would better 
coordinate the Agency's prevention, stabilization, and response efforts 
by combining small, separate offices with overlapping functions. This 
would enhance USAID's operational capabilities in responding to crises, 
including through a strengthened focus on preventing violent extremism.
    While resilience and food security do not currently fall entirely 
under the oversight of the Bureau for Democracy, Conflict, and 
Humanitarian Assistance (DCHA), I understand that the Transformation 
proposals identify the linkages between the resilience work in USAID's 
current Bureau for Food Security, investments in addressing fragility, 
and humanitarian assistance, which would be housed in the Bureaus of 
CPS and BA, respectively. The proposed RFS Bureau would strengthen 
support to USAID's Missions in the field, build resilient communities, 
and improve water security in countries and communities to reduce, 
hunger, poverty, and malnutrition.
    I would also like to note that some elements of the current DCHA 
Bureau would not fall under the purview of the R3 family of Bureaus. 
One critical element, the Center for Democracy, Rights and Governance, 
would move to the proposed Bureau for Democracy, Development, and 
Innovation. I understand this shift would strengthen the Agency's 
programming in democracy and governance programming through the 
creation of a Deputy Assistant Administrator to oversee this portfolio. 
Democracy and citizen-responsive governance underpin sustainable 
development, but, in the current structure, conflict and immediate 
humanitarian responses often overshadow USAID's programs in these 
areas.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Bonnie Glick by Senator Edward J. Markey

Trump Administration Commitment to Foreign Aid
    Question 1. Over the past two years, there have been indicators 
that the Trump administration is assigning a lower value to the role 
foreign aid in advancing U.S. national security, including successive 
budget requests that would significantly cut resources and a 
rescissions proposal that--if carried out--would have handicapped 
American aid programs. Given this administration's views, do you 
believe that the U.S. Government, including USAID, should reduce the 
role of development as a tool for executing U.S. foreign policy? If 
not, what assurances do you have from the White House, or elsewhere in 
the administration, that you will be able to continue traditional U.S. 
policy that recognizes the importance of foreign assistance to U.S. 
national security?

    Answer. I believe in the important role the U.S. Agency for 
International Development (USAID) plays in our foreign policy, and, if 
confirmed, commit to being a forceful advocate within the 
administration for USAID.

    Question 2. If confirmed, what will you do to ensure that any 
administration efforts to cut resources are carefully assessed, based 
on your understanding of the role of development assistance in 
furthering U.S. foreign policy and national security objectives?

    Answer. I agree that the U.S. Agency for International Development 
(USAID) plays a critical role in advancing U.S. national security 
interests through its development and humanitarian assistance. I 
understand that USAID relies on a data-driven approach to foreign 
assistance, which allows USAID to articulate, from a development 
perspective, the countries that possess the greatest capacity for and 
commitment to development, as well as what the key barriers each 
country faces. Using these data, USAID can focus its assistance 
strategically and help countries on their journeys to self-reliance. If 
confirmed, I will support this approach, which I believe ensures our 
development assistance furthers U.S. foreign policy and national 
security objectives.

    Question 3. During his U.N. General Assembly Remarks on September 
25, President Trump said he had asked Secretary Pompeo to take a hard 
look at our foreign assistance, and determine if aid recipients ``have 
our interests at heart.'' Have you been informed what will this review 
look like? If confirmed, would you advise the Secretary to condition 
aid based upon the policies toward the United States by recipient 
countries? Would you recommend that the administration engage Congress 
in any such review?

    Answer. Senator, I have not been involved in the foreign assistance 
review, so would defer to the White House on the specifics of what the 
review will look like. If confirmed, I will recommend that the 
administration engage with Congress on the review. If confirmed, I 
would support any thoughtful review of assistance, especially one 
focused on improving effectiveness and efficiency of the Agency if it 
moves forward.
USAID Management
    Question 4. According to press reports from earlier this year, 
Bethany Kozma, a senior advisor for gender equality and women's 
empowerment, attended a U.N. meeting on women's rights and gender 
equality and said the United States was a ``pro-life nation.'' Prior to 
serving in USAID, she was an advocate against transgender rights, 
pushing for restrictions against transgender bathrooms in public 
schools. I am deeply troubled that someone who has a track record of 
speaking out against LGBT rights, and is misrepresenting U.S. law in 
international meetings has a senior advisory role in a U.S. agency 
responsible for the implementation of foreign aid programs in a non-
discriminatory, impartial manner. Do you agree that the United States 
is a ``pro-life nation?

    Answer. Senator, I am not familiar with the remarks made by that 
particular USAID staffer.
    I believe that no country can thrive until all persons, regardless 
of gender, sexual orientation, religion or ethnicity, are treated as 
full and equal members of society. One of USAID's core values is 
inclusion, which applies across all of USAID, from programming to 
Agency staffing.

    Question 5. If confirmed as Deputy Administrator managing the 
agency, what steps would you take to ensure USAID programs conform to 
U.S. law and are not unduly influenced by individual views and 
attitudes?

    Answer. If confirmed, I commit that USAID programs will follow all 
applicable U.S. laws and will not be unduly influenced by individual 
views and attitudes.
Burma
    Question 6. What specific USAID programs are addressing the needs 
of the Rohingya in camps in Cox Bazar and any Rohingya currently in 
Rakhine State? Are these sufficient, and if not, what should USAID do 
to better address the needs of the Rohingya?

    Answer. I understand the emergency humanitarian assistance provided 
by the U.S. Agency for International Development (USAID) in Bangladesh 
primarily finances the delivery of food nutrition interventions, and 
the strengthening of logistical capacity among r organizations that are 
responding to the refugee crisis. Just last week, USAID announced 
funding for programming to reduce the risk of natural disasters, which 
will facilitate the rehabilitation of multi-purpose cyclone shelters. 
USAID has also adapted its development assistance to the fluid needs of 
the displaced and the host communities in and around Cox's Bazar, 
including to fund fact-based news programming that dispels rumors and 
misinformation; improvements in the management of environmental 
resources support to mitigate the challenges of deforestation in the 
area; and health care, through a shelter for the victims of human 
trafficking and three primary health clinics.
    In Burma, I understand that USAID is providing emergency food 
assistance, water, sanitation, health care and protective services, 
shelter, nutrition, and economic recovery support. I believe much more 
is required to meet the humanitarian needs of the most vulnerable in 
Burma and Bangladesh, but I have seen that the U.S. Government 
continues to call on other donors to respond to the crisis with 
additional resources. The United States cannot bear a disproportionate 
share of the cost of alleviating the suffering caused by this tragedy.
    I personally remain concerned about the possibility of premature 
returns of the Rohingya if the Burmese Government is not fulfilling its 
promises, and, if confirmed, I will urge that any returns be fully 
voluntary and dignified, and that the Burmese ensure the long-term 
safety of all returnees.
    If confirmed, I will work with my colleagues to continue to monitor 
the situation and assess the needs of the Rohingya, and I commit to 
reporting back to Congress.

    Question 7. How much access do USAID partners have in Rakhine? Is 
the Burmese Government cooperating with humanitarian actors to deliver 
aid?

    Answer. I understand the Burmese Government continues to restrict 
most access by international non-governmental organizations to Northern 
Rakhine State. I have seen that the U.S. Government advocates strongly 
and consistently for unfettered humanitarian access, not only to 
Rakhine State, but also to conflict-affected areas in Kachin and 
Northern Shan. I have read that restraints imposed by the Burmese 
Government include insufficient approvals to conduct relief activities, 
frequently changing the procedures to apply for authorization to 
travel, and restrictions on travel to field sites.
    Staff at the U.S. Agency for International Development (USAID) have 
briefed me that nearly 70 percent of organizations that were previously 
operating in Northern Rakhine State prior to August 2017 still have not 
received approval from the Government of Burma to conduct relief 
activities. I know USAID Administrator Green was able to travel to one 
village in Northern Rakhine when he visited in May. However, since that 
time, I have heard that denials of access by the Burmese Government are 
happening more frequently for locations outside of Rakhine and that 
access to Rakhine itself continues to be challenging.
    If confirmed, I will be a forceful advocate for unfettered 
humanitarian access throughout Burma.

    Question 8. While Bangladesh has been generous in providing refugee 
for an estimated one million refugees, they are shouldering a 
significant burden. Are there any signs the Government is seeking to 
return refugees to Burma involuntarily?

    Answer. The Government of Bangladesh has been generous in providing 
shelter for the Rohingya, and all of us should appreciate the support 
the Bangladeshi people have shown to the refugees.
    I understand that the Government of Bangladesh is not trying to 
involuntarily return refugees involuntarily to Burma. I have read that 
the U.S. Government, the United Nations, and other donors continue to 
emphasize that all returns of refugees must be safe, voluntary, and 
dignified, in keeping with international standards.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                  Bonnie Glick by Senator Jeff Merkley

        No funds appropriated in FY 2017 or FY 2018 for bilateral 
        assistance to West Bank/Gaza, which includes the USAID 
        administered Economic Support Fund (ESF), have been obligated 
        to date. In September, the Trump administration announced that 
        $200 million in life-saving and development assistance would be 
        ``redirected'' elsewhere without specifying where. The 
        administration also announced that an additional $10 million in 
        programs administered by USAID to promote relationship building 
        between Israelis and Palestinians--including children--would be 
        redirected away from Palestinian civilians.

    Question 1. Should USAID's Mission Director and the senior 
leadership of USAID's Middle East Bureau been consulted on the 
administration's decision to redirect aid from West Bank/Gaza? Had you 
been serving as USAID Deputy Admnistrator, would you have supported the 
administration's decision to redirect aid?

    Answer. I understand that, earlier this year, the President 
directed a review of U.S. assistance to the Palestinian Authority in 
the West Bank and Gaza to ensure these funds were being spent in 
accordance with U.S. national interests, and were providing value to 
the U.S. taxpayer.
    I further understand that, throughout the review process, the U.S. 
Agency for International Development (USAID) communicated to the 
interagency the impact such a decision would have on USAID's programs, 
our Mission in Israel that covers the West Bank and Gaza, and the 
Agency's partners on the ground.
    If confirmed, I look forward to keeping you updated on the impact 
of these decisions on USAID's programming in the West Bank and Gaza.

    Question 2. If confirmed, will you pledge that USAID will fully 
obligate funds appropriated by Congress for the purpose intended?

    Answer. As U.S. Agency for International Development (USAID) 
Administrator Mark Green has stated, USAID continues to be grateful for 
all funding appropriated to it by the U.S. Congress. If confirmed, I 
commit to ensuring the Agency spends these funds in the best interest 
of the U.S. taxpayer, and to working closely with Congress to ensure 
the Agency obligates funding in a way that meets Congressional intent.

    Question 3. Specifically where is the $200 million in bilateral 
assistance to West Bank/Gaza to be ``redirected?''

    Answer. Earlier this year, I understand the President directed a 
review of U.S. assistance to the Palestinian Authority and in the West 
Bank and Gaza to ensure these funds were being spent in accordance with 
U.S. national interests, and were providing value to the U.S. taxpayer.
    As a result of that review, I have heard that the U.S. Agency for 
International Development (USAID), at the direction of the President, 
has reinvested in other places more than $200 million in Fiscal Year 
2017 Economic Support Funds originally planned for programs in the West 
Bank and Gaza. I understand that USAID submitted Congressional 
Notifications to redirect these funds to high-priority projects 
elsewhere. For example, I understand that $5 million was redirected to 
fund programming democracy and governance in Ethiopia, which will 
capitalize on the recent opening of political space brought about by 
the new Prime Minister.
    While I have not yet received a briefing on the reprogramming 
decisions in detail, if confirmed, I commit to updating you on the 
specifics.

        In a February 8, 2017 Washington Jewish Week op-ed titled, ``We 
        need a better deal at the United Nations,'' you argued that the 
        United States should end assistance to the U.N. Relief and 
        Works Agency for Palestine Refugees (UNWRA).

    Question 4. Why did you make this recommendation?

    Answer. Hamas has misappropriated UNRWA schools and hospitals for 
terrorist purposes. This is unacceptable, and why I have called for 
UNRWA to reform.

    Question 5. What impact do you believe U.S. funding cuts to UNRWA 
will have on Palestinian children who receive education through UNRWA?

    Answer. The world is experiencing historic levels of population 
displacement, and this is an issue the global community must address. 
The United Nations plays a critical role in providing aid to displaced 
populations, and I am committed to working with all stakeholders to 
alleviate their suffering.
    I understand the United States is ready to engage with governments 
in the region regarding humanitarian assistance to the Palestinians, 
including to discuss the possible transition of services provided by 
the United Nations Relief and Works Agency (UNRWA) to national 
authorities in countries that are hosting Palestinian refugees, or to 
other international or local non-governmental organizations, as 
appropriate. While I do not have more details at this time, if 
confirmed, I look forward to keeping you updated on the implications of 
these decisions on the programming managed by the U.S. Agency for 
International Development in the West Bank and Gaza, and on the details 
of our diplomatic efforts to engage other donors.

    Question 6. Do you agree with the reported concerns expressed by 
Israeli military leaders\1\ that withholding U.S. contributions to 
UNWRA could lead to a humanitarian crisis in West Bank/Gaza, which 
risks emboldening enemies of Israel such as Hamas and other external 
actors?
---------------------------------------------------------------------------
    \1\  https://www.timesofisrael.com/fearing-collapse-amid-unrwa-
cuts-israeli-officials-urge-aid-for-gaza/

    Answer. I understand that, after careful review, the administration 
determined that the United States will not make additional 
contributions to the United Nations Relief and Works Agency (UNRWA). 
However, I further understand the administration remains very concerned 
about the deteriorating humanitarian situation in Gaza, and is mindful 
of its impact on innocent Palestinians, including school children.
    I understand the United States is ready to engage with governments 
in the region regarding humanitarian assistance to the Palestinians, 
including to discuss the possible transition of services provided by 
UNRWA to national authorities in countries that are hosting Palestinian 
refugees, or to other international or local non-governmental 
organizations, as appropriate. While I do not have more details at this 
time, if confirmed, I look forward to keeping you updated on the 
implications of these decisions on the programming managed by the U.S. 
Agency for International Development in the West Bank and Gaza, and on 
the details of our diplomatic efforts to engage other donors.

    Question 7. In the same op-ed of February 8, 2017, you advocated 
that the United States should withdraw from the U.N. Framework 
Convention on Climate Changes (UNCCC). One of the stated focuses of 
USAID programming is helping recipients of aid deal with the ``effects 
of greater climate variability and change, from more intense heat 
waves, droughts, flood and storms.'' How would a decision to withdraw 
from the UNCCC advance those USAID development priorities? 
Additionally, do you believe that climate chaos plays a contributing 
role in global food-insecurity, and if so, how?

    Answer. The United States remains a party to the 1992 Framework 
Convention on Climate Change. I understand that the U.S. Agency for 
International Development (USAID) continues to work with its partners 
around the world to help them deal with climate-related impacts.
    I believe the climate is changing, and that it has an impact on 
food-insecurity. USAID recognizes that changing climate patterns and 
extreme weather events, such as droughts, floods, and extended periods 
of extreme temperatures, pose major challenges to global food security. 
Evidence shows that these patterns and events result in recurrent and 
costly humanitarian crises. Even more broadly, they cause millions of 
vulnerable people to fall back into poverty, or to become poor for the 
first time.
    If confirmed, I commit to supporting USAID's programs that help 
address changing climate patterns and extreme weather events and 
improve food security.

    Question 8. If confirmed, how will you ensure that U.S. development 
and humanitarian assistance is divorced from any appearance of conflict 
of interest with the Trump Organization given President Trump's refusal 
to divest himself from his businesses and the Organization's extensive 
holdings in countries who are recipients official U.S. development 
assistance?

    Answer. The U.S. Agency for International Development (USAID) 
adheres to stringent procurement-integrity processes intended to 
promote competition and best value, and address any potential conflicts 
of interest. I am not aware of any connections between USAID and the 
Trump Organization. If confirmed, I commit to comply with all relevant 
federal ethics laws, regulations, and rules and I will consult with the 
Agency's Designated Ethics Official for guidance on possible conflicts 
of interest that become known to me.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 Bonnie Glick by Senator Cory A. Booker

USAID Reforms
        Proposed USAID structural reforms include establishing several 
        new bureaus and reorganizing where some offices are located. 
        Currently, responsibility for programming for Democracy, 
        Rights, and Governance sits in the same bureau that addresses 
        conflict issues, DCHA. However, in the new design, those two 
        elements will be separated and located in different bureaus.

    Question 1. Considering that so many of the long term solutions to 
conflict are related to issues of democracy, rights, and governance, 
why is USAID now proposing to separate these two elements that would 
seem to merit even closer coordination?

   The Democracy, Rights, and Governance office will now be located 
        within a new Bureau for Development, Democracy and Innovation, 
        that brings together technical offices related to the Economic 
        Growth, Education, and Environment (E3) Bureau, as well as the 
        Global Development Lab. If the goal of this new bureau is to 
        have more holistic cross-cutting program development, why 
        exclude global health and other technical bureaus and offices? 
        If coordination with global health and other bureaus and 
        offices is possible without combining them together, then why 
        is the agency combing E3, the Lab, and DRG together? What is 
        the common theme that supports that combination?

    Answer. I understand that the proposed Transformation would elevate 
democracy, human rights, and governance (DRG) into a new Center within 
the proposed Bureau for Development, Democracy, and Innovation (DDI), 
and that linkages between the DDI Bureau and other technical Bureaus 
would advance the integration of DRG practices in areas such as health 
and food security. While I understand the U.S. Agency for International 
Development (USAID) currently has some systems in place for its other 
Bureaus to coordinate with the Bureau for Global Health, I have seen 
that program-design and other technical services for many sectors are 
scattered across the organization, and disconnected from each other. By 
unifying the Global Development Lab, E3 and DRG under the DDI Bureau, I 
believe USAID would be able to provide better and more comprehensive 
support to field Missions, while holding DDI teams accountable for 
improving the design of our programs and providing other specialized 
technical assistance to the field.
    While I understand some facets of USAID's DRG programming would 
move to the DDI Bureau under the proposed Transformation, the new 
Bureau for Conflict-Prevention and Stabilization (CPS) would enhance 
the Agency's operational capabilities in responding to crises, 
including a strengthened focus on preventing violent extremism (PVE). I 
have noted that reports suggest that grievances regarding lack of 
responsiveness to citizens' concerns by public authorities and abuses 
by security forces are primary drivers of young people to espouse 
extremist views or join violent extremist organizations, which means 
the CPS Bureau will have to have a strong governance component in its 
PVE programs. Staff within the proposed CPS Bureau would include 
technical experts in governance, and the Bureau would have strong 
institutional linkages back to the DDI Bureau.
    If confirmed, I commit to working with you to ensure USAID 
establishes deliberate linkages between the DDI and CPS Bureaus, to 
ensure close coordination of technical and operational capabilities to 
support USAID Missions in the field.
The Journey Towards Self Reliance
        Administrator Green has emphasized a new frame through which to 
        view our development assistance: a journey towards self 
        reliance with a distinct end goal whereby a country would no 
        longer need development assistance. Setting this as a goal 
        makes sense to frame how we interact with aid recipient 
        countries. However, other than improving metrics in measuring 
        progress towards self reliance for recipient countries, I don't 
        have a good sense of how actual programming would change.

    Question 2. Could you provide some concrete examples of how this 
reframing of our development assistance goal would affect programming?

    Answer. I understand the new emphasis at the U.S. Agency for 
International Development (USAID) on ``The Journey to Self-Reliance'' 
uses 17 third-party, publicly available metrics to (1) help determine 
where a country sits in its overall development journey; and, (2) 
establish, at a very high level, its relative strengths and challenges 
on that journey. I have read that USAID will look at each country's 
resulting Road Map to re-shape partnerships accordingly, to focus on 
enabling partner countries to marshal and manage effectively the 
resources they need to finance their own development. USAID staff have 
briefed me that programs will also engage the private sector to create 
more market-based solutions and more innovative, commercially oriented 
collaborations, and redefine relationships by using incentive-based 
tools (such as commitments to policy reform and cost-sharing or co-
financing) to ensure the incentives on the U.S. side and the host-
government side clearly propel movement along the journey to greater 
self-reliance.
Innovation
        USAID's Global Development Lab, the agency's focal point for 
        scientific and technological innovation, has sponsored a series 
        of problem solving competitions. The most promising ideas are 
        usually tested with pilot programs in a limited geographic 
        area. I'm encouraged by the agency's commitment to innovation 
        as demonstrated by the Global Development Lab and particularly 
        the Development Innovations Ventures (DIV) office. However, 
        fully implementing innovative concepts beyond the pilot phase 
        is challenged by uncertainties related to long-term funding, 
        programming flexibility, and the ability to spread new ideas 
        throughout the agency.

    Question 3. How can USAID ensure that promising new ideas go beyond 
the pilot phase?

   Recognizing that new approaches can be threatening to some, how do 
        you plan to promote a willingness to take calculated risks and 
        encourage individuals to buck the status quo?

    Answer. During the five years I spent working in IBM's Research 
Division, I saw first-hand how the application of science and 
technology can solve problems. During that time, I co-authored three 
patent applications. I believe the use of science and technology are 
essential parts of a larger strategy to reshape the way work is done, 
to develop/test/refine new solutions, and to bring them to scale. I 
share your commitment to innovation, and agree that supporting and 
funding successful solutions and programs beyond the pilot phase must 
always be the end game. I am excited about the ways the U.S. Agency for 
International Development (USAID) can do this. As part of my 
consultations, I met with the Chief Information Officer of USAID, and 
discussed with him possible ways to scale some of the innovations that 
are coming out of the Global Development Lab by using new technologies 
like Artificial Intelligence.
    As an example, through innovation-acceleration work, USAID could go 
beyond providing an initial grant to providing custom business support, 
which would help innovators overcome barriers like educating and 
recruiting investors, acquiring talent and operational support, and 
marketing their prototypes and products. Additionally, I understand 
USAID is pursuing reforms to its procurement policies and systems to 
move beyond a traditional business model by focusing on advancing 
collaboration and co-creation, which will allow USAID to embrace new 
partners and innovative solutions to development challenges, as well as 
to integrate proven innovations into its work.
    Through merging the core capabilities of the Lab in the proposed 
Global Development into the proposed Bureau for Development, Democracy 
and Innovation (DDI), I believe USAID can infuse innovation into the 
design and implementation of programs across the Agency's entire 
portfolio, where before the Lab only influenced a small percentage of 
USAID's budget. This integration would also foster greater familiarity 
with calculated risk, and would contribute to the adoption of promising 
technological tools and approaches throughout USAID. I understand the 
DDI Bureau would blend the best of the ``expeditionary'' innovative 
programs of USAID, like DIV, with a focus on service to the field, to 
capitalize on the opportunity to integrate innovation in all areas in 
the Agency's daily work.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Michael T. Harvey by Senator Robert Menendez

Democracy Promotion
        Helping grow democratic and citizen responsive governance 
        abroad underpins the success of U.S. relief and development 
        missions.

    Question 1.  What are the most important actions you have taken in 
your career to support democracy and human rights?

   What has been the impact of your actions?

    Answer. My strategic approaches, while leading field Missions for 
the U.S. Agency for International Development (USAID) in multiple 
countries, share the common thread of finding opportunities to enable 
citizens, communities and institutions to hold their governments, at 
all levels, more accountable to their people, and insisting that 
governments needs to perform and fulfill their responsibilities.
    In Serbia, our community-reconciliation programs were critical to 
enabling both Serbian and Albanian communities to get past the violent 
conflict and sense of alienation that affected Southwestern Serbia. I 
was the most-visible face of the U.S. Government in that region: I let 
Belgrade know we were watching, and reassured the Albanian minority we 
had not forgotten them.
    During my tenure in Tel Aviv, we began to invest our Conflict-
Mitigation and Management (CMM) monies to support programs between 
Israeli Jewish and Arab citizens. (CMM funding had previously only been 
used to bring together groups across the Green Line). These programs 
probably did more to help intercommunal relationships within the State 
of Israel than anything else USAID did during my time as Mission 
Director.
    I could offer several examples from my most-recent experience as 
USAID Mission Director in Nigeria, but let me cite just one--the 
mobilization of public demand for better health and education to prompt 
improvements in citizen-responsive governance. As in much of Africa, 
the funding available to the USAID Mission in Nigeria is heavily 
weighted toward HIV/AIDS, and there are few resources for programs in 
democracy and governance. Recognizing this reality, we restructured our 
education and health funding to do three things:

 1. Organize community-level civil-society organizations (CSOs) around 
        education and health to give active voice to public demands in 
        these two areas;
 2. Make clear to State Governors that we were conditioning our 
        financial support on their choosing the necessary policy 
        priorities and making the necessary personnel and budget 
        decisions required to turn around the performance of the public 
        sector in these two areas; and
 3. Work directly with all levels of the State structures, from 
        Departments of Budget, Procurement, Personnel, Education and 
        Health, to enable the Governors to honor their 
        commitments.Where we used this approach, we saw increases in 
        State funding in these two areas, higher school attendance, 
        better health outcomes, and improved public attitudes toward 
        the State Governments.

    Question 2.  What are the most pressing challenges to democracy or 
democratic development around the globe?

    Answer. A major challenge is the continuing trend of democratic-
backsliding, characterized by increasing governmental constraints on 
fundamental freedoms, including freedom of speech, religion and 
association, as well as abuses of human rights. The rise of a new, more 
sophisticated form of authoritarianism that uses subversive tactics to 
undermine the legitimacy of democratic institutions is exacerbating 
these trends. Specifically, in the Middle East, I am particularly 
concerned about the operating space for civil society in Egypt. I 
understand that USAID funds organizations that advocate for improved 
public services and the free exercise of key rights supported by the 
Egyptian Government. These projects combat gender-based violence and 
trafficking in persons, and promote gender equality and civic 
participation.
    Democratic deficiencies in other countries also contribute to some 
of the biggest threats to U.S. national security, including violent 
extremism, armed conflict, and transnational organized crime, because 
terrorists, criminal organizations and others exploit vulnerabilities 
created by weak rule of law, unchecked corruption, and ineffective 
governance. Within our own Hemisphere, we are witnessing endemic 
corruption, economic mismanagement, and political repression drive 
instability in Venezuela and Nicaragua, for example.. I understand that 
the U.S. Agency for International Development (USAID) is lending 
critical support to civil-society organizations, including human-rights 
groups, and free and independent media outlets to build awareness and 
pressure authorities to reverse deteriorating social, economic, and 
political conditions.

    Question 3.  What steps will you take--if confirmed--to support 
democracy globally? What do you hope to accomplish through these 
actions?

    Answer. Throughout my career as a Foreign Service Officer, 
including as Mission Director for the U.S. Agency for International 
Development (USAID) in multiple countries, my strategic approaches 
share the common thread of finding opportunities to enable citizens, 
communities and institutions to hold their governments, at all levels, 
more accountable to their people, and insisting that governments needs 
to perform and fulfill their responsibilities. If confirmed, I will be 
committed to implementing the mission statement of the U.S. Agency for 
International Development (USAID), particularly its commitment to 
strengthening citizen-responsive, democratic governance abroad. I know 
this is a priority for Administrator Green, and I wholeheartedly 
endorse the steps he has already taken to address serious democratic 
challenges around the world. Because good governance is key to all 
development work, I would keep it in the forefront of my work to 
achieve two key outcomes: mitigating the risks of democratic-
backsliding; and helping countries move forward in their Journey to 
Self-Reliance through citizen-responsive, democratic governance.

    Question 4.  What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. The same technologies that offer opportunities for 
strengthening democracy can be repurposed as impediments to democracy, 
as authoritarian regimes develop and share tools to spread 
disinformation, manipulate elections, and discredit democratic 
institutions. The U.S. Agency for International Development often 
provides democracy assistance in challenging, fragile, and conflict-
prone environments. I understand the Agency must continually adapt to 
address emerging obstacles, with long-term engagement and support in 
mind as a method for making gains over time.

    Question 5.  How will you utilize U.S. Government assistance 
resources at your disposal to support democracy and governance, and 
what will you prioritize in processes to administer such assistance?

    Answer. If confirmed, I will be committed to using U.S. Government 
resources available to implement the mission statement of the U.S. 
Agency for International Development, which includes an explicit 
commitment to strengthening citizen-responsive, democratic governance 
abroad. Among the priorities I envision are the following: 1) 
developing effective approaches to emerging issues and priorities 
within the democracy sector, including religious freedom, 
disinformation, and authoritarian influence; 2) strengthening rapid-
response capabilities in fragile and transitioning political contexts; 
and 3) expanding the integration of democracy, rights, and governance 
principles in other development sectors, because participatory and 
inclusive approaches make for more sustainable and effective 
development outcomes.

    Question 6.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society when you travel abroad?

    Answer. Yes. If confirmed, I commit to meeting with civil-society 
and human-rights organizations, both in Washington, D.C., and during my 
travels to the Middle East.

    Question 7.  What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) has funded programs to defend and improve the legal 
environment and expand civic space around the world, such as the Non-
Governmental Organization (NGO) Legal Enabling Environment Program 
(LEEP), which promotes a more welcoming legal and regulatory 
environment for civil-society organizations and responds swiftly to 
NGOs by providing technical assistance on laws and regulations that 
affect them.
    Specifically, in the Middle East, I am particularly concerned about 
the operating space for civil society in Egypt. I understand that USAID 
funds organizations that advocate for improved public services and the 
free exercise of key rights supported by the Egyptian Government. These 
projects combat gender-based violence and trafficking in persons, and 
promote gender equality and civic participation.
    If confirmed I commit to continuing USAID's efforts to support 
civil society and NGOs.

    Question 8.  If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties?

    Answer. Yes. I commit to meeting with democratically oriented 
political figures and parties, both in Washington, D.C., and during my 
travels to the Middle East.

    Question 9.  What steps will you take to encourage genuine 
political competition?

   Will you advocate for access and inclusivity for women, minorities 
        and youth within political parties?

    Answer. I understand that a key component of the programming funded 
by the U.S. Agency for International Development to support elections 
and political processes is empowering women, youth and other 
traditionally marginalized groups to participate meaningfully in 
political life. I have received information that this work includes 
strengthening the role of women, youth, and minorities in the 
leadership of political parties, as well as increasing the supply of, 
and demand for, political candidates from these groups.
    If confirmed, I will be a staunch advocate for access and 
inclusivity for women, minorities and youth within political parties.

    Question 10.  Will you actively support freedom of the press and 
address any government efforts designed to control or undermine press 
freedom through legal, regulatory or other measures?

    Answer. Yes, if confirmed, supporting freedom of press will remain 
one of my priorities. The U.S. Agency for International Development has 
historically recognized the important role that an independent press 
plays in citizen-responsive governance, and is one of the largest 
donors for the development of pluralistic, diverse, independent media 
systems.

    Question 11.  Will you commit to meeting regularly with 
independent, local press when you travel abroad?

    Answer. Yes.

    Question 12.  Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors around the world?

    Answer. Yes. If confirmed, I commit to continuing engagement with 
civil society to counter disinformation and propaganda.

    Question 13.  Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity?

    Answer. Yes. Administrator Green has been clear that inclusion is 
one of the core values of the U.S. Agency for International 
Development, and that non-discrimination toward beneficiaries is a 
basic principle of development. I wholly agree, and commit that I will 
defend the human rights and dignity of all people across the globe, no 
matter their sexual orientation or gender identity.

    Question 14.  What specifically will you commit to do to help LGBTQ 
people around the world?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) continues to implement its comprehensive, inclusive 
non-discrimination policies for the beneficiaries of contracts and 
grants. If confirmed, I will support the implementation of these 
policies.
    Administrator Green has also elevated the importance of inclusive 
development approaches to help ensure that all marginalized groups in 
developing countries participate in, contribute to, and benefit from 
USAID's development efforts. If confirmed, I will support this 
approach.
Climate Change
        Climate change is an emerging threat that the Department of 
        Defense refers to as a threat multiplier.

    Question 15.  Do you believe that human activities, such as the 
burning of fossil fuels and other activities that release greenhouse 
gases into atmosphere is contributing to the increase global average 
temperatures?

   If not, do you intend to change USAID policy and programming that 
        addresses the challenges around climate change according to 
        your views on climate change?

    Answer. I believe that the climate is changing, and that it has 
always been changing. I understand that the U.S. Agency for 
International Development (USAID) looks at climate change and other 
environmental challenges through a development lens, and that the 
Agency continues to work with its partners around the world to help 
them deal with the impacts of extreme weather events and a changing 
climate.

    Question 16.  When USAID seeks improve global food security and 
examines climate change's role in increasing drought risks, or how sea 
level rise may infiltrate underground fresh water aquifers, or how 
climate change is affecting the range of disease vectors like mosquitos 
that carry malaria. do you believe it is not necessary, or wrong, to 
account for what scientific data is telling us about climate change 
risks?

    Answer. I understand that a core principle of the development 
policy and programming of the U.S. Agency for International Development 
(USAID) is that it applies analytic rigor to support evidence-based 
decision-making. USAID actively incorporates consideration of climate 
conditions into its country strategies and processes to design projects 
and activities, to ensure its portfolio of investments does not have a 
negative impact on the environment and positively helps to build the 
resilience of communities and countries in the long term. Proactively 
managing the risks of weather-related shocks and stresses, such as 
droughts, floods, and shifting rainfall patterns, also reduces the need 
for costly disaster response. If confirmed, I hope to work with experts 
in industry and academia to find ways to plan resilient responses to 
climatic shocks.
USAID Independence
        Throughout the first year of the Trump administration, the 
        administration seemed to seriously be considering having the 
        State Department subsume USAID.

    Question 17.  Do you believe that USAID should be an independent 
agency?

    Answer. Yes, I believe the U.S. Agency for International 
Development should remain an independent Agency.

    Question 18.  How important to the mission and success of USAID, do 
you believe us associated with maintaining USAID's development missions 
separate from, but adequately coordinated with, State Dept.'s 
diplomatic and political missions?

    Answer. I believe it is critical for the development mission of the 
U.S. Agency for International Development (USAID) to remain separate 
from, but coordinated with, the mission of the Department of State. 
This allows USAID to focus on long-term development programs while 
closely planning with the Department of State to ensure these 
investments align with diplomatic priorities and policy goals.

    Question 19.  If confirmed, will you work ensure that USAID remains 
independent?Yes.

    Question 20.  If confirmed, will you work to defend USAID's ability 
to determine its own priorities and develop its own strategic 
approaches to achieving its missions?

    Answer. Yes. If confirmed, I will be a strong advocate for the 
ability of the U.S. Agency for International Development (USAID) to 
fulfill its critical mission and help our partner countries make 
progress on their Journeys to Self-Reliance.
USAID Budgets
        Two years in a row, the president proposed to cut USAID's 
        budget by nearly 40 percent.

    Question 21.  Do you believe USAID can do its job effectively under 
the budgets the President has proposed for the Agency?

    Answer. If confirmed, I pledge to work to advance the core priority 
of the U.S. Agency for International Development--advancing America's 
interests through our foreign assistance. While I was not involved in 
the formulation of previous budget requests, I believe that the 
Agency's work must directly improve humanitarian and development 
outcomes, in ways that are clearly measurable and easily evaluated, and 
should be designed to contribute to the self-reliance of our partners.

    Question 22.  Understanding that needs may (or will) always be 
greater than the sums of funds provided, do you believe this is a 
reasonable excuse for not requesting funds that more closely or 
accurately reflect USAID's needs?

    Answer. If confirmed, I look forward to engaging in the budget 
process for Fiscal Year 2021. I look forward to supporting 
Administrator Green in efforts to ensure the U.S. Agency for 
International Development is targeting its investments at critical 
development and national-security needs and that the funding generously 
appropriated by Congress directly advances America's national interests 
and economic prosperity.

    Question 23.  What should USAID do differently to convince to 
budget decision makers within the White House, National Security 
Council and the Office of Management and Budget to provide a better and 
more realistic budget for USAID?

   Should USAID lean more heavily on its private sector partners to 
        help convey the value of development to the White House, 
        National Security Council and OMB?

    Answer. I believe that the efforts by the U.S. Agency for 
International Development (USAID) to reduce poverty, strengthen 
citizen-responsive governance, and help people and countries progress 
beyond assistance must advance our national security, economic 
prosperity, and national values. If confirmed, I look forward to 
working with Administrator Green to diversify USAID's partner base so 
the Agency engages with new actors--including those in the private 
sector--to work collectively to improve the delivery of foreign 
assistance and the impact of our development dollars.
    I also expect to speak with groups domestically to educate 
Americans across the country about the importance of development and 
humanitarian assistance. Most Americans believe that the foreign-
assistance budget represents between 20 and 30 percent of overall 
Federal spending. When they learn that it is less than one percent, and 
when they learn what we accomplish with that small investment and how 
it improves our national security, helps create economic opportunity 
for U.S. firms, and promotes American values, they can become some of 
our strongest advocates to the White House, the Congress, and beyond.

    Question 24.  If confirmed, will you commit to working on improving 
perceptions within the Trump administration on USAID's value, and the 
value of development to advancing U.S. foreign policy objectives and 
national security?

    Answer. If confirmed, I will advocate within the administration for 
the resources that are critical to advancing the mission of the U.S. 
Agency for International Development, including promoting and 
demonstrating American values abroad, and advancing a free, peaceful, 
and prosperous world in which we are safer and more secure.
Rescission
        This administration continues to take steps to drastically 
        reduce our foreign aid, in direct contravention of 
        Congressional intention.

    Question 25.  If confirmed, will you commit to advocating against 
these efforts, including OMB efforts to submit further rescission 
packages to Congress?

    Answer. If confirmed, I will be a strong advocate for the U.S. 
Agency for International Development, to ensure it has the tools and 
resources needed to fulfill its mission in advancing U.S. national 
security, U.S. economic prosperity, and American values. I look forward 
to working with the interagency and the Congress to further our shared 
objectives.
Policy on only providing U.S. foreign assistance to ``our friends''
        This week, at the United Nations General Assembly meeting, 
        President Trump echoed a call he made in his 2018 State of the 
        Union to only provide foreign assistance to ``our friends.''

    Question 26.  What do you think the President means when he refers 
to ``our friends''?

   If you do not know, would you ask the President, or the White House 
        what defines ``our friends'' and include the answer in your 
        response to these questions?
   Do you believe U.S. foreign assistance should be conditioned on how 
        countries vote at the UN?
   To the best of your knowledge has USAID received or requested any 
        policy guidance from the White House on the ``our friends'' 
        policy the President recently restated?
   If so will you please articulate this policy to the committee?
   Is USAID following any orders that reflect the President's wishes 
        with respect to this statement?
   How do you believe a policy that ``ensure[s] American foreign 
        assistance dollars always serve American interests, and only go 
        to our friends'' would, or should, be carried by USAID?
   Do you believe the U.S. should limit diplomatic and development 
        engagements to our ``friends''?
   Who are our ``friends?''
   Would you agree that disengaging with a number of around the world 
        could create opportunities for our global competitors like 
        Russia and China, or extremist elements like Boko Haram and 
        ISIS, to fill the void we create?

    Answer. As echoed in President Trump's remarks before the United 
Nations (U.N.) General Assembly (UNGA), the United States should always 
seek strong and sovereign global partners. The U.S. Agency for 
International Development (USAID) can be most-effective in its 
development efforts by supporting countries on their Journeys to Self-
Reliance, by building enduring partnerships and cultivating fellow 
donors.
    I have not received any information from the White House regarding 
the President's remarks at UNGA. I believe that foreign aid is integral 
to promoting our foreign-policy objectives. Helping our allies is 
important, but we must also recognize that sometimes foreign aid can be 
useful to create and cultivate potential new allies in the future.
    For example, I understand that USAID is committed to helping civil 
society and defenders of human rights in Cuba, even though, according 
to the Department of State, Cuba voted with the United States 17 
percent of the time in 2017 at the U.N. In my view, we should not 
automatically cut funds to programs in a country just because its 
government votes against us at the U.N. I understand the money USAID 
spends in Cuba does not go to the Castro regime, but precisely the 
opposite: it helps the Cuban people, especially the families of 
dissidents and political prisoners. I see this type of support as in 
the national-security interest of the United States. I believe the 
Trump administration is committed to helping the Cuban people, as shown 
by the President's National Security Presidential Memorandum NSPM-5 of 
June 16, 2017, ``Strengthening the Policy of the United States Toward 
Cuba,'' which clearly supports programs to build democracy in Cuba.
    We all know that development needs will always be greater than 
available resources, and the U.S. Government will have to make 
strategic funding decisions about where to focus its resources. By 
using a data-driven approach, I believe USAID will be able to 
articulate, from a development perspective, the countries that possess 
the greatest capacity for, and commitment to, maintaining and financing 
their own development, as well as the key barriers to this self-
reliance. By using these data, I foresee that USAID can strategically 
focus its investments to help countries to develop strong and resilient 
economies and societies.
Foreign Assistance Review
        It is my understanding that the National Security Council and 
        OMB are undertaking a review of U.S. Foreign Assistance.

    Question 27.  What do you believe is motivating this review?

   Will you pushback against any claims that devalue or distort the 
        impact of development assistance that may be made in this 
        forthcoming report?

    Answer. I am also aware the Trump administration is undertaking a 
review of U.S. foreign assistance, although I have not been involved in 
the process.
    I understand the U.S. Agency for International Development (USAID) 
is constantly reviewing its use of foreign assistance to ensure it is 
being an effective steward of taxpayer dollars, and to ensure that its 
programs advance U.S. national security, U.S. economic prosperity, and 
American values.
    If confirmed, I would support any thoughtful review of assistance, 
especially if it is focuses on improving the effectiveness and 
efficiency of USAID.
Defense, Diplomacy, and Development
        The ``Three Ds--Defense, Diplomacy, and Development,'' is a 
        longstanding approach the U.S. has taken to executing U.S. 
        foreign policy.

    Question 28.  What is your opinion of the Three Ds--Defense, 
Diplomacy and Development and what is vision to elevate both diplomacy 
and development in an administration where generals have driven 
national security and foreign policy thus far?

   Do you agree that each of the Three Ds--Defense, Diplomacy and 
        Development are separate and equal tools in the President's 
        foreign policy toolkit?

    Answer. I support the defense, diplomacy and development ``Three 
D's'' approach to international affairs, and I agree that each of the 
``Three D's'' is an important tool in the President's national-security 
and foreign-policy toolkit. Throughout my career as a Foreign Service 
Officer at the U.S. Agency for International Development (USAID), after 
leading a succession of USAID Missions in conflict zones, working 
closely with both my State Department and Department of Defense 
colleagues, I have seen firsthand the importance of all ``Three D's.'' 
I believe the USAID has a critical role to play in our national 
security, and, if confirmed, I will be a forceful advocate for 
development and diplomacy in the interagency.
Diplomacy, Development and National Security
        Effective international development fosters stability, 
        generates goodwill, and creates opportunities in developing 
        countries. The (December) 2017 National Security Strategy 
        acknowledges this fact by stating: ``Some of the greatest 
        triumphs of American statecraft resulted from helping fragile 
        and developing countries become successful societies. These 
        successes, in turn, created profitable markets for American 
        businesses, allies to help achieve favorable regional balances 
        of power, and coalition partners to share burdens and. helped 
        create a network of states that advance our common interests 
        and values.''

    Question 29.  If confirmed, how will you support the elevation of 
development as an equal and relevant tool to diplomacy within the State 
Department, at the National Security Council and in discussions across 
the White House?

    Answer. Every country is on its own Journey to Self-Reliance, and 
the presence of the U.S. Agency for International Development (USAID) 
as part of each larger U.S. Embassy community, is tailored to each 
country's Journey. While USAID has general program areas (i.e., 
education, economic growth, maternal/child health, etc.) the success of 
each type of development program in each country is highly dependent on 
where that country is on its Journey. I understand that USAID is 
focusing on data-driven results, and I think that an open discussion of 
what this means and how it differs from diplomacy is important, as it 
will differentiate the work done by the Department of State and that 
done by USAID. Additionally, when the work done by USAID's partners is 
successful, these results should speak for themselves, and thereby help 
to maintain development as an equal and relevant tool in the national-
security toolbox.
    With the elimination of the `Development' Directorate within the 
National Security Council, many congressionally endorsed Presidential 
Initiatives (like Power Africa and Feed the Future) that have 
significant development outcomes have been neglected.

    Question 30.  If confirmed, will you support these important 
initiatives and elevate their use as a tool for both national security 
and American prosperity?

    Answer. While I will not be working directly with Power Africa, 
Feed the Future, the President's Emergency Plan for AIDS Relief, or the 
President's Malaria Initiative in the position for which I am 
nominated, I was heavily involved in all four programs during my time 
in Nigeria. If confirmed in my new role in the Middle East Bureau, I 
hope to continue to be an advocate for these successful and important 
initiatives as opportunities arise going forward.
    I am a strong supporter of the work of the U.S. Agency for 
International Development (USAID) in food security, and thank this 
committee for its bipartisan support for Feed the Future. I understand 
that since Feed the Future started, an estimated 23.4 million more 
people are living above the poverty line, 3.4 million more children are 
living free of stunting, and 5.2 million more families no longer suffer 
from hunger. Feed the Future is a critical program, as investments in 
resilience and food security help combat the root causes of hunger and 
poverty, build more sustainable economies, and champion local solutions 
and entrepreneurs.
    I also believe Power Africa has been a valuable and successful 
program--every dollar that USAID has invested in Power Africa projects 
has attracted over $50 in private-sector resources, and the initiative 
has leveraged over $16 billion in private-sector resources to projects 
to date, including through engagement with over 70 American companies. 
I believe energy is an area in which the United States has a 
comparative advantage in development, and hope to see USAID replicate 
similar efforts in other parts of the world. If confirmed, I am 
interested in better understanding how we can use Power Africa and 
other Presidential initiatives to incentivize good policies, capacity-
building, citizen-responsive governance, open markets, and private 
enterprise in our partner countries by leveraging the financing and 
expertise of the American private sector.

    Question 31.  The 2017 National Defense Authorization Act includes 
several provisions (Sections 335, 583, and 1075), which illustrate a 
link between defense, diplomacy and development in preserving human 
rights, mitigating conflict and natural disasters, and protecting 
national security interests. If confirmed, how will you work across the 
Three Ds to recalibrate the National Security Strategy, and embrace a 
strategic approach to democracy, human rights and conflict being a 
strategic and national security interest of America?

    Answer. I am broadly very supportive of the defense, diplomacy and 
development (``Three Ds'') approach, as illustrated by the President's 
National Security Strategy and the Department of State-U.S. Agency for 
International Development (USAID) Joint Strategic Plan. These documents 
show that development is a core component, along with defense and 
diplomacy, of America's national-security and foreign-policy toolkit. 
Each of the ``Three Ds'' is critical to addressing strategically the 
challenges related to threats to democracy and human rights, as well as 
increased conflict around the world. An example of the ``Three Ds'' 
approach in practice is the recent Stabilization Assistance Review 
(SAR), endorsed by the leadership of the Departments of State and 
Defense and USAID. I believe the SAR articulates a coordinated approach 
to recognizing the strategic objectives of the U.S. Government in 
unstable contexts. If confirmed, I would be committed to continuing 
cooperation and coordination across the ``Three Ds'' in support of U.S. 
national-security interests.

    Question 32.  Do you agree that improving economic opportunity, 
health outcomes, food security, and addressing natural resource 
scarcity in developing and fragile countries reduces insecurity and 
instability risks?

    Answer. Yes. I fully agree that addressing national-security 
challenges requires work to improve economic opportunities, health 
outcomes, and food security, and to remove barriers to accessing 
natural resources. If confirmed, I will continue to prioritize the work 
of the U.S. Agency for International Development in these areas.
Presidential Initiatives
        U.S. foreign policy has prioritized diplomacy and development 
        activities that engage public and private sector partners in 
        eradicating global health pandemics, feed the world through 
        agriculture and invest in small farmers, heighten trade and 
        economic development, elevate the full rights of women and 
        marginalized people and expand access to electricity to reduce 
        poverty and power market growth.

    Question 33.  What priorities will you advance?

    Answer. If confirmed, I commit to working to engage both the public 
and private sectors in addressing the development challenges faced by 
countries on their Journeys to Self-Reliance. As I noted in my written 
testimony, if confirmed, I will ensure the U.S. Agency for 
International Development maintains its focus on the promotion of 
democratic values and free elections, as the role of democracy and 
citizen-responsive government is critical to the Journey to Self-
Reliance. Women's issues, including economic empowerment and health, 
are other areas to which I am fully committed, and which should remain 
priorities for USAID. I will also continually focus on helping 
communities to resist the siren call of religious extremism and protect 
their children for the violence it advocates.
    I also believe that our development projects must leverage the 
application of technology and technological solutions. Using technology 
can sometimes shorten timelines on projects, reduce the use of 
resources, and scale results. However, technology alone is not a 
solution--the capacity-building associated with technology-driven 
solutions, when directed at targeted countries, will enable citizens of 
those countries to sustain the technology-driven solutions. An infusion 
of technology into the Agency's work, when combined with technical 
assistance, will be another priority for me, if confirmed.

    Question 34.  Do you support the extension of the following 
Presidential Initiatives: Power Africa, Feed the Future, the Young 
African Leaders Initiative, Let Girls Learn, and the President's 
Emergency Plan for Aids Relief?

    Answer. While I will not be working directly with Power Africa, 
Feed the Future, the Young African Leaders Initiative, the President's 
Emergency Plan for AIDS Relief, or the President's Malaria Initiative 
in the position for which I am nominated, I was heavily involved in 
these programs during my time in Nigeria.
    If confirmed, I look forward to working with Administrator Green, 
and with Congress, to ensure the U.S. Agency for International 
Development (USAID) maintains gains in these areas, and continues to 
address global health, food security, education, the empowerment of 
women and girls, and other development challenges throughout the world. 
Regardless of the specific program, sector, or region, I pledge to do 
my utmost to ensure USAID remains a good steward of taxpayer dollars, 
and that the Agency uses the funding Congress appropriates it to 
maximize measurable impact on the ground, advance our national 
security, enhance U.S. economic prosperity, and promote American 
values.
Gender Equity
        It has come to my attention that USAID has undertaken some 
        steps to alter the terminology in gender equity programming.

    Question 35.  Do you believe there is a distinction between gender 
and sex?

    Answer. Yes.

    Question 36.  What is your understanding of what gender equity 
means?

    Answer. ``Gender-equity'' is the process of being fair to women and 
men, boys, and girls. To ensure fairness, measures need to compensate 
for cumulative economic, social, and political disadvantages that 
prevent women and men, boys, and girls from operating on a level 
playing field.

    Question 37.  What do you believe is the difference between women's 
equality and gender equity?

    Answer. I understand that the U.S. Agency for International 
Development uses the term ``gender-equality'' to mean the state or 
condition that affords men and women equal enjoyment of human rights, 
socially valued goods, opportunities, and resources. Genuine equality 
means more than parity in numbers or laws on the books; it means 
expanded freedoms, and improved overall quality of life for all people. 
Reaching gender-equality requires working with women, men, boys, and 
girls to bring about changes in attitudes, behaviors, roles, and 
responsibilities. Women's empowerment is a critical part of gender-
equality. ``Gender-equity'' and ``gender-equality'' are different in 
that equity is the process, while equality is the result.
Diversity

    Question 38.  If confirmed, what will you do to elevate and embrace 
the diversity of people, voices and backgrounds within the USAID's 
workforce?

    Answer. If I am confirmed, from my first day in my new position the 
staff and officers of the Bureau for the Middle East at the U.S. Agency 
for International Development (USAID) will hear and know that I expect 
they will continue to hold true to the Agency's strong tradition of 
fostering a diverse and inclusive culture within the Bureau. If 
confirmed, I will hold all staff, but especially those in leadership 
and supervisory positions, accountable for protecting that tradition in 
fulfilling their responsibilities.

    Question 39.  If confirmed, will you commit to fully support the 
full funding and maintenance of the Payne Fellows program, and 
diversity initiatives at large within the USAID?

    Answer. Yes.

    Question 40.  If confirmed, what will you do to support more 
minority candidates applying and successfully receiving promotions 
within the Senior Foreign Service?

    Answer. I am proud to have a reputation as one of the Agency's 
strongest mentors, and someone actively committed to promoting the 
development and advancement of staff from all backgrounds, men and 
women. If confirmed, I will carry forward that history into my new 
role.
Food Security
        We have seen in regions like the horn of Africa skirmishes over 
        grazing lands erupt, and food insecurity and extreme drought in 
        places like Syria has been pointed to as a contributing factor 
        to the violence that we see today. This violence in turn is 
        ramping up food insecurity. There are currently four countries 
        facing man-made famine or near famine conditions, stemming from 
        prolonged instability, war, and conflict.

    Question 41.  If confirmed, what will you do to elevate the food 
continuum of food assistance (humanitarian assistance), resilience 
(both humanitarian assistance and development), food security 
(development assistance), and agricultural trade and investment 
(development assistance and development finance)?

    Answer. Again, while food security issues will not be a central 
area of focus in my new position (with the possible exception of in 
Yemen), if confirmed, I believe it is important to strengthen the links 
between the investments the U.S. Agency for International Development 
(USAID) makes in agricultural trade and entrepreneurship, resilience, 
food security, water and sanitation, humanitarian assistance and 
stabilization. I understand that as part of the Transformation designed 
by Administrator Mark Green, USAID is proposing several structural 
reforms to accomplish this task, including by establishing the Bureaus 
for Humanitarian Assistance, Conflict-Prevention and Stabilization, and 
Resilience and Food Security. The proposal includes the creation of an 
Associate Administrator for Relief, Resilience and Response (R3) to 
oversee these Bureaus, which I believe will further strengthen the 
continuum from humanitarian assistance, to resilience, and to food 
security. If confirmed, I look forward to working with the 
Administrator and Congress to implement these changes.

    Question 42.  Is it in the U.S. interest to help lead and initiate 
programs designed to improve food security?

    Answer. Yes. As populations soar in many of the world's most-
fragile and impoverished regions and new stresses and unplanned shocks 
increase the risk of food-insecurity, investments in the creation of 
strong, resilient food systems are vital to U.S. national security.

    Question 43.  Is it in the U.S. interest to work towards addressing 
the causes of food insecurity, including growing scarcity of natural 
resources?

    Answer. Yes. I understand that improving the management of natural 
resources is a key component of addressing food-insecurity sustainably, 
as reflected in the U.S. Government's Global Food-Security Strategy 
(GFSS). Continued stress on ecosystems, marine environments, fisheries, 
and the land, water, and natural resource base upon which productive 
agriculture relies, as well as the complex intrastate governance 
challenges related to water resources, pose challenges to food 
security. If confirmed, I look forward to ensuring that the U.S. Agency 
for International Development implements the priorities outlined in the 
GFSS strategically to reduce poverty and hunger.
The Risks Associated with Politicizing U.S. International Development
        The slogan ``America First'' advances a political message that 
        emphasizes the advancement of singular U.S. interests in our 
        foreign policy that runs the risk of complicating U.S. 
        development initiatives. Successful international development 
        programs depends upon the ability of our private sector and NGO 
        implementing partners and the credibility they have abroad. 
        ``America First'' risks putting forward the appearance that 
        U.S. companies and NGOs are political operatives of the U.S. 
        Government, and puts them at greater risk of being targeted by 
        the extremist influences their work is counteracting.

    Question 44.  What is your understanding of the differences between 
political and strategic objectives in U.S. foreign policy?

   Do you believe U.S. development assistance should only be used to 
        advance political objectives in U.S. foreign policy?
   When is it appropriate to use development assistance to advance 
        political priorities in foreign policy?
   Should the delivery of U.S. development assistance be a shared 
        endeavor with NGO and private sector partners?
   How do you think foreign leaders, including U.S. adversaries who 
        are competing with us for influence in vulnerable and strategic 
        countries, interpret and process the ``America First'' 
        doctrine?
   Do you believe the U.S. private sector should be political agents 
        of the Trump administration?
   Do you understand why U.S. development partners may be anxious 
        about how ``America First'' complicates their work and risks 
        giving the appearance that they are political agents at the 
        service of the United States Government when they help 
        administer development assistance on-the-ground?
   If confirmed, will you commit to working with development 
        stakeholders to understand better the value of development 
        assistance and the consequences of overexposure of the 
        ``America First'' doctrine?

    Answer. The President has said, ``America First does not mean 
America alone,'' but he has also been clear that the United States is 
the largest donor of foreign aid, and has called on other countries to 
step up their development contributions.
    I believe that U.S. development assistance is critical to advancing 
our national security and economic prosperity, and to promoting our 
values of democracy, human rights, and freedom abroad. I also believe 
that partners--including non-governmental organizations, faith-based 
organizations and the private sector, and academia--are critical to the 
development and humanitarian work of the U.S. Agency for International 
Development (USAID). I am pleased that USAID is working to diversify 
its partner base to expand work with the private sector and faith-based 
organizations, and if confirmed, I will support this important effort.
    Power Africa has shown us the impact of the private sector--every 
dollar USAID has invested in Power Africa projects has attracted over 
$50 in private-sector resources, and the initiative has leveraged over 
$16 billion in private-sector resources to projects to date, including 
through engagement with over 70 American companies. I believe energy is 
an area in which the United States has a comparative advantage in 
development, and hope to see USAID replicate similar efforts in other 
parts of the world. If confirmed, I am interested in better 
understanding how we can use Power Africa and other Presidential 
initiatives to incentivize good policies, capacity-building, citizen-
responsive governance, open markets, and private enterprise in our 
partner countries by leveraging the financing and expertise of the 
American private sector. The potential to transfer the Power Africa 
model into other sectors and other geographic areas is something I 
would be interested in exploring, if confirmed. The use of best 
practices and proven successes should help to guide USAID as it 
considers scaling a diverse range of programs worldwide.
    I also believe the people who receive our assistance should know it 
comes from the American people, and this is why I strongly support 
branding our aid.
Oversight and Vetting
    Question 45.  Has anyone ever made an allegation of sexual 
harassment, gender or racial discrimination, hostile work environment, 
or wrongful termination against you, whether through an informal 
process, or a formal complaint?

   If so, what was the nature of the allegation, and how was it 
        resolved?

    Answer. No, not to my knowledge.

    Question 46.  Have you entered into any settlements (including but 
not limited to private mediation or arbitration) involving a claim of 
sexual harassment, gender or racial discrimination, hostile work 
environment, or wrongful termination against you?

   If so, please include the nature of the claim and the settlement 
        amount.

    Answer. No.

    Question 47.  Has anyone ever made an allegation of sexual 
misconduct or assault against you?

   If so, what were the circumstances and how was it resolved?

    Answer. No, not to my knowledge.

    Question 48.  Have you ever taken any disciplinary action against 
any employee that you supervised in response to any allegations of 
sexual harassment, gender or racial discrimination, or hostile work 
environment in the workplace?

   If so, please describe your role and the actions taken.

    Answer. No.

    Question 49.  What will you do to address any claims of sexual 
harassment, discrimination, hostile work environment, or sexual 
misconduct at USAID?

    Answer. I will handle any and all such situations in a manner which 
is fair to all employees involved, consistent with the policy 
requirements of the U.S. Agency for International Development and U.S. 
law, and with the intent to create a work environment that is 
respectful, safe and empowering for all employees.

    Question 50.  Do you commit to ensuring the Department's policies 
are clearly communicated and that employees know how to report any 
complaints?

    Answer. Yes.

    Question 51.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government?

    Answer. Yes.

    Question 52.  If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If I am confirmed, from my first day in my new position the 
staff and officers of the Bureau for the Middle East at the U.S. Agency 
for International Development (USAID) will hear and know that I expect 
they will continue to hold true to the Agency's strong tradition of 
fostering a diverse and inclusive culture within the Bureau, and that I 
will not tolerate such behavior as retaliation, blacklisting, or other 
prohibited personnel practices. If confirmed, I will hold all staff, 
but especially those in leadership and supervisory positions, 
accountable for protecting that tradition in fulfilling their 
responsibilities.

    Question 53.  Do you commit to report any concerns you have about 
waste, fraud, or abuse to the USAID Inspector General?

    Answer. Yes.

                               __________


     Responses to Additional Questions for the Record Submitted to 
            Michael T. Harvey by Senator Benjamin L. Cardin

Syria Stabilization and Development
        The administration recently announced it was reprogramming $230 
        million in funds originally marked for Syria stabilization. The 
        U.N. has estimated that Syria stabilization costs will exceed 
        $300 billion.

    Question 54.  Despite other donor nations who have stepped forward, 
in light of the $230 million reprogramming, do you believe the U.S. and 
the international community will match the need?

   What in your view is USAID's role in Syria stabilization?
   What stabilization activities, specifically, did USAID plan to 
        support prior to the re-programming? What countries or 
        organizations have the capacity to support and carry out 
        similar programs in Syria?
   Syria has experienced a major exodus of academics, and primary and 
        secondary schools across the country have shut down, leaving 
        thousands of children out of school. How does USAID plan to 
        support re-establishing Syria's education system?

    Answer. I understand the U.S. Agency for International Development 
(USAID) continues to work hand-in-hand with the Departments of State 
and Defense, and with our Coalition partners, to support stabilization 
initiatives that enable Syrians to return voluntarily and safely to 
their homes in Raqqa and other former strongholds of the Islamic State 
in Iraq and Syria (ISIS). Since the beginning of the conflict, the 
United States has provided more than $875 million in stabilization 
assistance to the people of Syria, which is in addition to the work 
undertaken, and still being carried out, by our Coalition partners.
    While I was not involved in the decision-making process, I 
understand that, after reviewing the military and financial 
contributions made by the United States to date, as well as significant 
new pledges made by Coalition partners, the administration determined 
to redirect to other global priorities some funds from Fiscal Year 2017 
originally planned for stabilization programming in Syria. USAID's 
stabilization efforts in Syria have addressed locally identified needs, 
especially in those areas liberated from ISIS. These have included re-
establishing power and water, restoring healthcare facilities, and 
refurbishing schools. Personnel from USAID and the State Department 
have worked with a variety of local Syrian partners in pursuit of these 
efforts to enable the safe and voluntary return of Syrians to their 
homes in the hope that these communities can return to normal life.
    The United States remains focused on the enduring defeat of ISIS 
and the stabilization of those areas recently liberated, and expects to 
be able to continue the successful military campaign against remaining 
pockets of ISIS radicals.
    I understand the administration intends to continue pressing 
partners to contribute to the ongoing stabilization needs in Syria, by 
building on the significant contributions that Coalition partners have 
already pledged since April.
    On education, I understand the Department of State's funding in 
Northeast Syria helped local students in Raqqa and the surrounding area 
to resume their education this month.
    USAID has additional, robust programs to fund education for Syrian 
refugees in neighboring Jordan and Lebanon. In partnership with the 
host-country governments, USAID's assistance ensures equitable access 
to public school for refugee students, particularly at the primary 
level.
Human Rights
    Question 55.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My strategic approaches, while leading field Missions for 
the U.S. Agency for International Development (USAID) in multiple 
countries, share the common thread of finding opportunities to enable 
citizens, communities and institutions to hold their governments, at 
all levels, more accountable to their people, and insisting that 
governments needs to perform and fulfill their responsibilities.
    In Serbia, our community-reconciliation programs were critical to 
enabling both Serbian and Albanian communities to get past the violent 
conflict and sense of alienation that affected Southwestern Serbia. I 
was the most-visible face of the U.S. Government in that region: I let 
Belgrade know we were watching, and reassured the Albanian minority we 
had not forgotten them.
    During my tenure in Tel Aviv, we began to invest our Conflict-
Mitigation and Management (CMM) monies to support programs between 
Israeli Jewish and Arab citizens. (CMM funding had previously only been 
used to bring together groups across the Green Line). These programs 
probably did more to help inter-communal relationships within the State 
of Israel than anything else USAID did during my time as Mission 
Director.
    I could offer several examples from my most recent experience as 
USAID Mission Director in Nigeria, but let me cite just one--the 
mobilization of public demand for better health and education to prompt 
improvements in citizen-responsive governance. As in much of Africa, 
the funding available to the USAID Mission in Nigeria is heavily 
weighted toward HIV/AIDS, and there are few resources for programs in 
democracy and governance. Recognizing this reality, we restructured our 
education and health funding to do three things:

 1. Organize community-level civil-society organizations (CSOs) around 
        education and health to give active voice to public demands in 
        these two areas;
 2. Make clear to State Governors that we were conditioning our 
        financial support on their choosing the necessary policy 
        priorities and making the necessary personnel and budget 
        decisions required to turn around the performance of the public 
        sector in these two areas; and
 3. Work directly with all levels of the State structures, from 
        Departments of Budget, Procurement, Personnel, Education and 
        Health, to enable the Governors to honor their commitments.

    Where we used this approach, we saw increases in State funding in 
these two areas, higher school attendance, better health outcomes, and 
improved public attitudes toward the State Governments.
Diversity
    Question 56.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I have a widely held reputation as one of the Agency's 
strongest mentors and someone actively committed to promoting the 
development and advancement of staff from all backgrounds, men and 
women. I will carry forward this history will into my new role if 
confirmed.

    Question 57.  What steps will you take to ensure each of the 
supervisors in the Middle East Bureau are fostering an environment that 
is diverse and inclusive?

    Answer. From my first day in my new position, if confirmed, the 
staff and officers of the Middle East Bureau at the U.S. Agency for 
International Development (USAID) will hear and know that I expect they 
will continue to hold true to the Agency's strong tradition of 
fostering a diverse and inclusive culture within the Bureau. I will 
hold all staff, but especially those in leadership and supervisory 
positions, accountable for protecting that tradition in fulfilling 
their responsibilities.
Conflicts of Interest
    Question 58.  Do you commit to bring to the committee's attention 
(and the USAID Inspector General) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 59.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 60.  Do you or do any members of your immediate family 
have any financial interests in any country abroad?

    Answer. No.

                               __________


     Responses to Additional Questions for the Record Submitted to 
             Michael T. Harvey by Senator Edward J. Markey

Assistance Cuts to West Bank/Gaza
    Question 1.  The administration's recent decision to cut 200 
million dollars in Economic Support Funds to civilians in the West Bank 
and Gaza will deny Palestinians, mostly women and children, access to 
clean water, food, education, and medical services. Denying this much-
needed aid exacerbates poverty, fuels extremism, furthers reduce the 
chance of a future peace agreement and threaten Israel's security. The 
administration has led us to believe that other countries will step up 
to fill in the gaps for humanitarian aid to the Palestinians. Do you 
know which countries are being engaged, and what is the status of U.S. 
diplomatic efforts to address the funding shortfall and overall 
humanitarian needs on the ground? If you are not aware, can you commit 
to updating Congress on the diplomatic efforts?

    Answer. I understand the United States is ready to engage with 
governments in the region regarding humanitarian assistance to the 
Palestinians, including to discuss the possible transition of services 
provided by the United Nations Relief and Works Agency (UNRWA) to 
national authorities in countries that are hosting Palestinian 
refugees, or to other international or local non-governmental 
organizations, as appropriate. While I do not have more details at this 
time, if confirmed, I look forward to keeping you updated on the 
implications of these decisions on the programming managed by the U.S. 
Agency for International Development in the West Bank and Gaza, and on 
the details of our diplomatic efforts to engage other donors.

    Question 2.  It appears that the 200 million dollars in Economic 
Support Funds intended for civilians in the West Bank and Gaza will be 
reprogrammed to support other priorities. Which priorities are being 
considered?

    Answer. Earlier this year, I understand the President directed a 
review of U.S. assistance to the Palestinian Authority and in the West 
Bank and Gaza to ensure these funds were being spent in accordance with 
U.S. national interests, and were providing value to the U.S. taxpayer.
    As a result of that review, I have heard that the U.S. Agency for 
International Development (USAID), at the direction of the President, 
has reinvested in other places more than $200 million in Fiscal Year 
2017 Economic Support Funds originally planned for programs in the West 
Bank and Gaza. I understand that USAID submitted Congressional 
Notifications to redirect these funds to high-priority projects 
elsewhere. For example, I understand that $5 million was redirected to 
fund democracy and governance programming in Ethiopia, which will 
capitalize on the recent opening of political space brought about by 
the new Prime Minister.
    While I have not yet received a briefing on the reprogramming 
decisions in detail, if confirmed, I commit to updating you on the 
specifics.

                               __________


     Responses to Additional Questions for the Record Submitted to 
               Michael T. Harvey by Senator Jeff Merkley

    Question 1.  Do you believe that the current military offensive led 
by the United Arab Emirates (UAE) around Yemen's port city of Hodeida 
undercuts U.N. brokered peace efforts?

    Answer. One of the primary concerns of the U.S. Agency for 
International Development (USAID) in Yemen is the humanitarian impact 
of the ongoing conflict. USAID urges the Saudi-led Coalition, the 
Houthis, and other parties to continue to allow the free movement of 
all humanitarian and commercial goods, including fuel, into and within 
Yemen to reach people in need, and to respect international 
humanitarian law and the safety of aid workers.

    Question 2.  Was USAID, international non-governmental 
organizations, or other donor countries consulted, pursuant to the 
Section 1290(b) determination in the FY2019 National Defense 
Authorization Act, on whether the Saudi Arabia-led coalition military 
operations in Yemen has upheld principles of discrimination and 
proportionality as is required under International Humanitarian Law 
(IHL) and the Laws of Armed Conflict (LOAC)?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) provided feedback to the Department of State on the 
determination regarding Yemen. However, as I was not involved in the 
certification process required under Section 1290(b) of the NDAA, I 
cannot comment on the specifics.

    Question 3.  If so, what specific evidence can USAID provide to 
support the conclusion that the percentage of civilian casualties in 
Yemen has decreased since the United States began providing various 
forms of military and intelligence assistance to the Saudi-led military 
coalition?

    Answer. I have received assurances that the administration 
continues to press Coalition partners at the highest levels to mitigate 
the conflict's impact on civilians, and reduce the risk of civilian 
casualties and damage to civilian assets.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Michael T. Harvey by Senator Cory A. Booker

East Jerusalem Hospital Funding Cut
        The Taylor Force Act, which I helped ensure met the objectives 
        of ending the despicable prisoner payments system while 
        protecting critical assistance to the most vulnerable, is now 
        being completely undermined by this administration. The law 
        contains explicit language exempting the East Jerusalem 
        Hospital Network from the cut off of assistance under the bill.

        I was shocked to hear that the administration was cutting $25 
        million in assistance to the East Jerusalem Hospital Network. 
        These hospitals treat some of the most difficult and needy 
        cases, like cancer care, cardiac and eye surgeries, neonatal 
        intensive care, children's dialysis and physical rehabilitation 
        of children. Our most recent Ambassador to Israel, Dan Shapiro, 
        called the move ``indefensibly cruel.'' Additionally, the 
        administration cut $10 million in Conflict Management and 
        Mitigation (CMM) grants, which bring together individuals of 
        different backgrounds from areas of conflict in people-to-
        people reconciliation activities.

    Question 1.  Why did the administration go against the intent of 
Congress and cut off the funding to the East Jerusalem Hospital 
Network?

   Why did the administration cut off Conflict Management and 
        Mitigation (CMM) grants in Israel, the West Bank, and Gaza?
   Explain how specifically cutting off the funding to the East 
        Jerusalem Hospital Network will advance U.S. objectives when 
        the administration had already announced the redirection of 
        some $200 million in other assistance to the West Bank and 
        Gaza?
   What is your position on providing this funding in the future?

    Answer. Earlier this year, I understand the President directed a 
review of U.S. assistance to the Palestinian Authority and in the West 
Bank and Gaza to ensure these funds were being spent in accordance with 
U.S. national interests, and were providing value to the U.S. taxpayer.
    As a result of that review, I have heard that the U.S. Agency for 
International Development (USAID), at the direction of the President, 
has reinvested in other places more than $200 million in Fiscal Year 
2017 Economic Support Funds originally planned for programs in the West 
Bank and Gaza, including the funds for the East Jerusalem Hospital 
Network. I understand that USAID submitted Congressional Notifications 
to redirect these funds to high-priority projects elsewhere. For 
example, I understand that $5 million was redirected to fund 
programming democracy and governance in Ethiopia, which will capitalize 
on the recent opening of political space brought about by the new Prime 
Minister.
    Consistent with these decisions, I understand some smaller, 
regional programs also adjusted their program plans. USAID has briefed 
me that the global Conflict-Management and Mitigation (CMM) program, 
which had planned to provide its $10 million in grants to organizations 
in the West Bank, Gaza, and Israel will refocus these funds to support 
CMM grants for organizations based in Israel that will support dialogue 
between Israeli Arabs and Israeli Jews.
    While I have not yet received a briefing on the reprogramming 
decisions in detail, if confirmed, I commit to updating you on the 
specifics.
    I can assure you, Senator, that I know these programs and these 
partners well, and if confirmed, I will continue to be closely engaged.



                               __________

Documentation of Atrocities in the Northern Rakhine State--Submitted by 
                             Senator Young

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
presiding.
    Present: Senators Flake [presiding], Risch, Young, Booker, 
and Cardin.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
committee will come to order. First I want to thank Senator 
Booker and his staff for working on the--to schedule this 
hearing and accommodating the dual panel format that we have 
going today. The committee will consider a total of eight 
ambassador nominations today. All career diplomats who have 
dedicated their professional lives to serving the United 
States, we really appreciate you having--you all being here, 
and all career diplomats, it does make it easier for us. We 
have seen many of you before. It has been wonderful to meet 
many of you and get reacquainted with others. I am now going 
through kind of my second round of people in African countries 
being nominated, so we appreciate the sacrifices that you are 
all making, and to your families in particular. We are grateful 
that so many are here.
    The first panel will include Mr. Craig Cloud, a nominee for 
Ambassador to Republic of Botswana; Michael Pelletier, nominee 
Ambassador to Madagascar and Union of the Comoros; Robert 
Scott, nominee for Ambassador to the Republic of Malawi; the 
Honorable Lucy Tamlyn, current Ambassador to the Republic of 
Benin, and nominee for Ambassador to the Central African 
Republican, also served in Chad, next-door.
    The second panel will be Mr. Eric Stromayer, nominee for 
Ambassador to the Togolese Republic; Simon Henshaw, for 
Ambassador to the Republic of Guinea; the Honorable Dennis 
Hankins, current Ambassador to the Republic of Guinea, nominee 
for the Ambassador to Republic of Mali; and, finally, Dennis 
Hearne, Ambassador for--or nominee for Ambassador to 
Mozambique.
    We are eager to hear all of the nominees and hear in 
particular about how the United States can continue to play a 
positive role in Africa where possible, and to help these 
countries continue on a sustainable path to growth and 
democracy and development. Considering the tremendous amount of 
experience the nominees have on both panels, I am encouraged by 
their nominations. I am looking forward to hearing from you. As 
I mentioned, I have seen many of you before, and traveling 
throughout Africa, I have traveled Africa with both of the 
members here and could not be more proud of the representation 
we have in so many countries there, the difficulty in some 
areas with so many threats and so much on your plate. So we 
appreciate you being here.
    I will turn now to Senator Booker for any opening comments.

                 STATEMENT OF HON. CORY BOOKER,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. First of all, I just want to say thank you 
to the chairman. You have been a friend and a real great 
guiding light for me as I have been new on this committee and 
focused on African issues, and it has been a privilege to be 
your ranking member.
    I just want to say that it is an honor to sit here before 
the Foreign Service officers that are before me. We just do not 
thank you all enough. I am still a freshman and have not 
finished yet a full 6 years in the Senate, but I have now 
traveled all across this globe and been in awe of the men and 
women that are out there in the field, really rising above 
partisanship and focused on purpose, doing God's work, helping 
to create stability, to create hope, to create opportunity 
abroad, as well as doing service for our country and in our 
country's name.
    I, too, want to join Senator Flake in thanking your 
families. I know it is not easy. I know the sacrifices that you 
make are not yours alone, but they are shared by your family 
members, and I am just grateful for that.
    I am reminded of the sacrifice that diplomats make with the 
recent news in Madagascar this week. My heart goes out to their 
families, my prayers as well, to them and the whole country 
team that are dealing with the challenges and the heartache.
    As Foreign Service officers, you have served in many 
centers of the world. You all collectively--in Iraq, 
Afghanistan, Sudan, Jordan, and many other places--have been 
working to promote U.S. priorities, critical relationships, and 
really do critical humanitarian work. You also have developed 
incredible specialties. You are experts in negotiations and 
expert managers, and I know that your experiences will be 
invaluable to the posts that you will hopefully be deployed to 
very soon.
    You all are going to countries that are important to many 
of our strategic priorities in Africa. Most are very, very 
tough postings, to countries like the Central African Republic 
and Mali that are in the midst of extraordinary civil strife 
and violent conflict. Sustained U.S. engagement is actually 
vital--I have seen it with my own eyes--to end these kind of 
crises, hold parties accountable, and give a pathway for other 
human beings to have a quality of life that we take for granted 
in our country.
    In other countries, such as Guinea, Togo, and Madagascar, 
critical elections are on the horizon, and democratic 
institutions need attention and support from the United States 
of America and the international community. HIV and AIDS 
continue to devastate communities in Botswana, Malawi, and 
Mozambique. And Ebola remains a threat in Guinea and across 
much of the continent.
    But despite these challenges, as I have traveled in the 
region with Senator Flake, I have been struck again by the 
resilience and generosity and courage not just of Americans in 
those areas, but of the incredible human beings that I have met 
and have inspired me. If confirmed, it will be up to each of 
you to lend the hand of the United States to encourage your 
counterparts in these countries to overcome divisions, to build 
accountable institutions, to harness new economic 
opportunities, to achieve not just human rights but a higher 
quality of life, and to find peaceful ways to resolve 
longstanding conflict.
    It is not an easy job, but it is absolutely a critical and 
essential one, not just for our nation, but for humanity as a 
whole. And actually before the hearing even starts, I know each 
of you are up for it.
    We ask that, if confirmed, you remain in communications 
with us. One real bipartisan sentiment that I'd like to convey 
is that we are your allies, we want you to be successful, and 
we want to be supportive. Let us know the challenges you face, 
what is working well and what is not, and, most importantly, 
how we can be of service to you.
    I look forward to your testimonies. As I said to many of 
you informally beforehand, and I will say now for the record, 
there is a little bit going on in Washington today, and I hope 
you will forgive a lot of my colleagues, who are dedicated 
Senators on both sides of the aisle, but are being drawn in 
different directions. Senator Flake and I happen to both also 
be on the Judiciary committee, and I know that there are 
pressing matters before us, so please do not count this in any 
way as a lack of interest and support. I have a feeling there 
will be lots of questions for the record, which I know you will 
diligently attend to, but please understand that though there 
are only two of us sitting here, this is a committee, as a 
whole, that supports you, believes in you, and should you be 
confirmed, will do everything they can to help you be 
successful.
    Thank you.
    Senator Flake. Thank you, Senator Booker.
    Thank you all for being here. We--as he mentioned, we have 
really been impressed as we travel throughout Africa with the 
representation we have. And some of you have been in posts that 
we have been to, and are going to posts that we will visit as 
well.
    Our first nominee, Mr. Cloud, previously served as 
Management Counselor at the U.S. Embassy in Kabul; Deputy Chief 
of Mission in Swaziland. Thank you. And you will proceed just 
after I say something about the others as well, and then all 
four of you can go one after the other.
    Senator Booker. And, Chairman, if I may.
    Could you please introduce your family members, especially 
if there are any from Arizona or New Jersey? [Laughter.]
    Senator Booker. And if any intend to run against either 
Jeff or myself. [Laughter.]
    Senator Flake. It is helpful to know, it really is. Thanks.
    And you will be headed to Botswana. I was just there last 
month, spent a good deal of time there, and it is a great post, 
and you will enjoy it.
    The second nominee, Mr. Pelletier, served as Dean of the 
School of Professional and Area Studies at the Foreign Service 
Institute; held positions in New Delhi, as well as Assistant 
Secretary, Deputy Assistant Secretary, Bureau of African 
Affairs.
    Mr. Scott, also most recently Acting Deputy Secretary of 
the Bureau of African Affairs, a position he has served in 
since 2016. He was also Deputy Chief of Mission in Zimbabwe, 
that is why we got to know each other during a previous CODEL.
    The last nominee on the panel, Lucy Tamlyn, has been 
through this confirmation process for her current post in 
Benin. She has served as Deputy Chief of Mission in Portugal 
and in Chad. She has been in the region and knows it and will 
bring a lot of expertise there.
    But please proceed.

STATEMENT OF CRAIG LEWIS CLOUD, OF FLORIDA, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF BOTSWANA

    Mr. Cloud. Thank you, Mr. Chairman, Ranking Member Booker. 
It is a great honor to appear before you today as President 
Trump's nominee to serve as the next Ambassador to the Republic 
of Botswana. I appreciate the confidence that the President and 
Secretary Pompeo have placed in me by putting my name forward.
    I am also deeply grateful to my parents, Lewis and Marietta 
Cloud, who could not be here today, and my wife, Angie, who is 
here, and not running for Senate, and my daughter, Wallace 
Anne, and also my son, John Beck. Without the support of each 
and every one of them, I would not be here before you today.
    During my 26 years in the Foreign Service, I have served in 
senior leadership positions in also challenging posts, most 
recently coming from Kabul, Afghanistan. My Africa experience 
includes 15 years serving in West, Central, and Southern 
Africa, including as Deputy Chief of Mission in what is now the 
Kingdom of Eswatini, working on democracy, health, and security 
issues.
    Botswana is one of the United States' most reliable 
partners on the continent. Our work in Botswana strengthens 
democratic institutions, protects health and human rights, 
conserves the environment and natural resources, and counters 
transnational organized crime.
    Economic ties between the United States and Botswana are 
growing. Our exports to Botswana in 2017 were up 120 percent 
from the prior year. The United States is one of the world's 
top purchasers of Botswana's diamonds. And U.S. tourists, 
attracted to the country's beautiful national parks and 
reserves, are the biggest per capita spenders in Botswana. If 
confirmed, I will encourage Botswana's efforts to diversify its 
economy and improve our opportunities for American businesses.
    The United States has invested more than $900 million in 
Botswana's health sector through the PEPFAR program. Despite 
the impressive progress, there are still an estimated 14,000 
new infections annually. If confirmed, I look forward to 
protecting our PEPFAR investment and leading our interagency 
health team as we work with the Government of Botswana on its 
HIV response.
    The Botswana Defence Force is one of our most professional 
militaries on the continent, and our military engagement 
remains strong. The U.S. also sponsors the International Law 
Enforcement Academy, which has trained more than 10,000 law 
enforcement professionals from 36 African partner nations.
    Support to both of these institutions has improved the rule 
of law in the country as well as on the continent, including 
our capacity to protect the largest populations of elephants on 
Earth from increasingly sophisticated poaching and ivory 
trafficking networks. If confirmed, I will work to expand the 
U.S.-Botswana military connections and our regional security 
cooperation through education and training programs.
    The U.S. Ambassador to Botswana also serves as the U.S. 
representative to the Southern African Development Community. 
And I am excited for the opportunity to work towards increased 
security, health, and prosperity across the region with other 
southern African nations.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to appear before you today. And I am happy to 
answer any questions.
    Thank you.
    [Mr. Cloud's prepared statement follows:]


                   Prepared Statement of Craig Cloud

    Mr. Chairman, Ranking Member Booker and members of the committee: 
It is a great honor to appear before you today as President Trump's 
nominee to serve as the next Ambassador to the Republic of Botswana. I 
appreciate the confidence the President and Secretary Pompeo have 
placed in me by putting my name forward. I am also deeply grateful to 
my incredible parents who couldn't be here today, and to my wife, 
Angie, and children, Wallace Anne and John Beck; I would not be here 
without their tremendous support.
    During my 26 years in the Foreign Service, I have served in senior 
leadership positions in a number of challenging posts including, most 
recently, Kabul, Afghanistan. My Africa experience includes fifteen 
years serving in West, Central, and Southern Africa, including as 
Deputy Chief of Mission in Swaziland, working on democracy, health, and 
security issues.
    Botswana is one of the United States' most reliable partners on the 
continent. Our work in Botswana strengthens democratic institutions, 
protects health and human rights, conserves the environment and natural 
resources, and counters transnational organized crime.
    Economic ties between the United States and Botswana are growing. 
Our exports to Botswana in 2017 were up 120 percent from the prior 
year. The United States is the world's top purchaser of Botswana's 
diamonds, and U.S. tourists, attracted to the country's beautiful 
national parks and reserves, are the biggest per capita spenders in 
Botswana. If confirmed, I will encourage Botswana's efforts to 
diversify its economy and improve opportunities for American 
businesses.
    The United States has invested more than $900 million in Botswana's 
health sector through the PEPFAR program. Despite impressive progress, 
there are still an estimated 14,000 new infections annually. If 
confirmed, I look forward to protecting our PEPFAR investment and 
leading our interagency health team as we work with the Government of 
Botswana on their HIV response.
    The Botswana Defence Force is one of the most professional 
militaries on the continent; and our military engagement remains 
strong. The U.S. also sponsors the International Law Enforcement 
Academy, which has trained more than 8,000 law-enforcement 
professionals from 37 African partner nations. Support to both of these 
institutions has improved rule of law in the country and the continent, 
including capacity to protect the largest population of elephants on 
Earth from increasingly sophisticated poaching and ivory trafficking 
networks. If confirmed, I will work to expand U.S.-Botswana military 
connections and our regional security role through education and 
training programs.
    The U.S. Ambassador to Botswana also serves as the U.S. 
representative to the Southern African Development Community, and I am 
excited about the opportunity to work towards increased security, 
health, and prosperity across the region with other southern African 
nations.
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today.I would be happy to answer any 
questions.


    Senator Flake. Thank you, Mr. Cloud.
    Mr. Pelletier.

STATEMENT OF MICHAEL PETER PELLETIER, OF MAINE, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
 STATES OF AMERICA TO THE REPUBLIC OF MADAGASCAR, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
              AMERICA TO THE UNION OF THE COMOROS

    Mr. Pelletier. Mr. Chairman, Ranking Member Senator Booker, 
I am honored to appear before you today as the nominee for 
Ambassador to the Republic of Madagascar and the Union of the 
Comoros. If confirmed, I look forward to strengthening our 
relationships with the governments and the peoples of 
Madagascar and Comoros.
    Mr. Chairman, allow me at this time, please, to introduce 
to you and the rest of the committee my wife, Sujatha, and our 
sons, Aniketan and Ethan, who are here with me. I have been so 
blessed over the years to have their company and their support 
as we have traveled around the world representing the United 
States of America, and I am so pleased that they are as excited 
as I am about this opportunity.
    I believe that my educational and professional experiences 
have prepared me well for this moment. My studies focused on 
the political and social development of Africa and led me to 
the Foreign Service and to my first tour overseas in Senegal. 
Since then, I have been privileged to work across Africa, the 
Arab world, and several times in India. Having served around 
the Indian Ocean throughout my career, it is truly an honor now 
to be considered as the nominee to serve as Ambassador to these 
great island countries of Madagascar, with its rich, proud, and 
unique history, and cultural and linguistic unity, and the 
Comoros, with its many ties to all of the regions bordering the 
Indian Ocean.
    These are critical times for both Madagascar and Comoros. 
Madagascar is preparing for elections in November, on schedule, 
5 years after the 2013 elections that reestablished democracy 
there. Comorians recent approved a number of constitutional 
changes in a referendum and are now working through the results 
of that referendum. The U.S., of course, fully supports the 
strengthening and reinforcing of democratic systems and the 
respect for democratic rights in both countries, as we do 
around the world.
    A successful, free, fair, and transparent election this 
year in Madagascar would signal the further strengthening of 
its democracy and give us an outstanding opportunity to 
redouble our efforts there to support political stability and 
to engage with the democratically elected government to 
encourage resilient and sustainable development for all of 
Madagascar's people and to protect its unique resources.
    Madagascar's task is made even more difficult by the 
ongoing drought in the southwest and the seasonal outbreaks of 
the plague. Our development assistance and our partnerships 
with Madagascar, including a vibrant Peace Corps program and 
our work with other international partners, can help Madagascar 
successfully address these challenges, including providing for 
the education and health needs of its people, combating illegal 
harvesting and export of Madagascar's unique and rich flora and 
fauna, fighting corruption, encouraging a positive business 
climate, and transparency conducive to trade and investment.
    If confirmed, I would also serve as Ambassador to the Union 
of the Comoros. Our goal is to continue to develop our positive 
and constructive relations with Comoros, and I look forward to 
supporting our local staff there and the staff in our Embassy 
in Antananarivo, who are dedicated to our relations, as well as 
to our well-focused Peace Corps program in Comoros.
    Mr. Chairman, Ranking Member Booker, I am truly honored and 
grateful to appear before you today. I look forward, if 
confirmed, to the opportunity to serve as Ambassador to 
Madagascar and the Union of the Comoros, and to strengthen and 
advance our partnerships.
    Thank you.
    [Mr. Pelletier's prepared statement follows:]


                Prepared Statement of Michael Pelletier

    Mr. Chairman, Ranking Member Senator Booker, and members of the 
committee, I am honored to appear before you today as President Trump's 
nominee as Ambassador to the Republic of Madagascar and the Union of 
the Comoros. If confirmed, I look forward to strengthening our 
relationships with the Governments and people of Madagascar and the 
Union of the Comoros.
    Mr. Chairman, please allow me at this time to introduce to you and 
the rest of the committee my wife, Sujatha, and our two sons, Aniketan 
and Ethan. I have been so blessed to have their company and support as 
we have travelled the world representing the United States of America, 
and I am so pleased that they are as excited about this opportunity as 
I am.
    I believe that my educational and professional experiences have 
prepared me well for this moment. My studies focused on political and 
social development in Africa, and led me to the Foreign Service and to 
my first assignment overseas in Senegal. Since then, I have been 
privileged to work across Africa, in the Arab world, and several times 
in India. Having served around the Indian Ocean throughout my career, 
it is truly an honor to now be considered as the nominee to serve as 
Ambassador to these great island countries: Madagascar, with its rich, 
proud, and unique history and cultural and linguistic unity; and 
Comoros, with its many ties to all of the regions bordering the Indian 
Ocean.
    These are critical times for both Madagascar and Comoros. 
Madagascar is preparing for elections in November, on schedule five 
years after the 2013 elections that re-established democracy there. 
Comorians recently approved a number of constitutional changes in a 
referendum, and are now working through the results of that referendum. 
The United States, of course, fully supports the strengthening and 
reinforcement of democratic systems and the respect of democratic 
rights in both countries, as we do around the world.
    The United States supports Madagascar's efforts to promote 
democracy and human rights. A successful, free, fair, and transparent 
election this year would signal the further strengthening of 
Madagascar's democracy and give us an outstanding opportunity to 
redouble our efforts there to support political stability and to engage 
with the democratically-elected government to encourage resilient and 
sustainable development for all of Madagascar's people, and to protect 
its unique resources. Madagascar's task is made even more difficult by 
the ongoing drought in the southwest and seasonal outbreaks of plague. 
Our development assistance and partnerships with Madagascar, including 
a vibrant Peace Corps program, and our work with other international 
partners, can help Madagascar successfully address these challenges, 
including providing for the education and health needs of the people, 
combatting the illegal harvesting and export of Madagascar's unique and 
rich flora and fauna, fighting corruption, and encouraging a positive 
business climate and transparency conducive to trade and investment.
    If confirmed, I will also serve as Ambassador to the Union of the 
Comoros.
    Our goal is to continue to develop our positive and constructive 
relations with Comoros. I look forward to supporting our local staff 
there and the staff in our Embassy in Antananarivo who are dedicated to 
U.S.-Comoros relations, as well as our well-focused Peace Corps program 
there.
    Mr. Chairman, Ranking Member Booker, members of the committee, I am 
truly honored and grateful to appear before you today. I look forward 
to the opportunity to serve as Ambassador to Madagascar and the Union 
of the Comoros, and to strengthen and advance our partnerships there.


    Senator Flake. Thank you, Mr. Pelletier.
    Mr. Scott.

 STATEMENT OF ROBERT K. SCOTT, OF MARYLAND, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF MALAWI

    Mr. Scott. Thank you. Mr. Chairman, Ranking Member Booker, 
I am honored to appear before you today as President Trump's 
nominee to be the next Ambassador to the Republic of Malawi. I 
appreciate the confidence he and Secretary Pompeo have shown to 
me through this nomination. If confirmed, I look forward to 
working with you and other members of Congress and staff to 
advance American interests in Malawi.
    My wife, Anne, and our twins, Jennifer and Nicolas, are 
here with me today. Nicolas and Jennifer grew up in Tanzania 
and Zimbabwe, where I served as Deputy Chief of Mission before 
my most recent position as Acting Deputy Assistant Secretary of 
State for African Affairs. If I am confirmed, we would welcome 
the opportunity to return to serve our country in that region.
    Malawi is a strong partner for the United States. Our goals 
in the country are to strengthen core institutions, helping 
make Malawi a more prosperous, healthier, and more democratic 
partner for the United States, and creating new jobs and 
investment opportunities for American companies.
    MCC is winding down its energy-focused compact, and I will 
urge the Government of Malawi to implement the reforms needed 
to take full advantage of its improved power infrastructure. I 
will also encourage the government's crucial anti-corruption 
efforts.
    Malawi has been a leader in adopting policies to control 
and combat HIV/AIDS. PEPFAR has helped sharply reduce the 
number of HIV/AIDS deaths and infections. These advances are 
fragile, however, and if confirmed, I will work with our team 
to sustain and maximize the impact of all of our health 
programs in the country.
    Agriculture is also a key to successful development. It 
generates nearly 80 percent of household income in Malawi and 
needs to be a focus of our efforts. Peace Corps is another 
successful program active in Malawi. My wife, Anne, is a former 
Peace Corps volunteer, and I fully appreciate the positive 
impact of this important program.
    Our security cooperation with Malawi is excellent. Malawi 
actively contributes to U.N. peace support operations on the 
continent. I would build on this strong relationship. If 
confirmed, I anticipate witnessing Malawi's sixth consecutive 
peaceful national democratic election in May of 2019, a process 
supported by our governance programs.
    Mr. Chairman, I will vigorously pursue the safety and 
security of American citizens and ensure responsible 
stewardship of taxpayer dollars through effective leadership of 
U.S. Mission Malawi's strong interagency team, if confirmed.
    Thank you, Mr. Chairman, Senator Booker, for the 
opportunity to appear before you today. I would be honored to 
respond to any questions.
    [Mr. Scott's prepared statement follows:]


               Prepared Statement of Robert Kenneth Scott

    Mr. Chairman, Ranking Member Booker, and Distinguished Members of 
the committee:I am honored to appear before you today as President 
Trump's nominee to be the next Ambassador to the Republic of Malawi. I 
appreciate the confidence he and Secretary of State Pompeo have shown 
in me through this nomination. If confirmed, I look forward to working 
with you and other Members of Congress and staff to advance American 
interests in Malawi.My wife, Anne, and our twins, Jennifer and Nicolas, 
are here with me today.
    Nicolas and Jennifer grew up in Tanzania and Zimbabwe, where I 
served as Deputy Chief of Mission before assuming my most recent 
position as Acting Deputy Assistant Secretary of State for African 
Affairs. We would welcome the opportunity to return to serve our 
country in that region. If confirmed, I would draw on my experience in 
the Africa bureau, and embassies in leading the outstanding Mission 
Lilongwe team in advancing U.S. interests in Malawi.
    Malawi is a strong partner for the United States, and a regional 
leader that can showcase a history of democratic elections and peaceful 
transfers of power. Our goals in Malawi are to strengthen core 
institutions that underpin democracy, economic growth, health and 
security--helping make Malawi a more prosperous, healthier, and more 
democratic partner for the United States--and creating new jobs and 
investment opportunities for American companies.
    If I am confirmed, I will work to ensure that our efforts to date 
continue to bear fruit, to the benefit of both countries. MCC is 
winding down a 5-year $350 million compact focused on energy, and I 
will urge the government of Malawi to implement the reforms needed to 
take full advantage of its improved power infrastructure. I will also 
encourage the Government of Malawi's anti-corruption efforts, 
sustainable management of its environmental resources, and pursuit of 
regional and continent-wide economic integration. Providing Malawi's 
women access to education and economic opportunities will be an 
important part of any future growth.
    Malawi has been a leader in Africa in the adoption of policies and 
programs to control and combat HIV/AIDS. PEPFAR has helped reduce the 
number of HIV/AIDS deaths by 73 percent, and the number of new HIV 
infections by 41 percent since 2003, but in a country as poor as 
Malawi, these advances are fragile, and can easily reverse. A healthy 
population is fundamental to development, and, if confirmed, I will 
work with our USAID and CDC programs to maximize the impact of PEPFAR 
and our other health programs in Malawi, which have also resulted in 
significant gains in maternal and child health.
    Agriculture is a key to successful development and also can provide 
opportunities for increased trade and markets for U.S. companies 
focused on value addition. Agriculture generates nearly 80 percent of 
household income in Malawi and this needs to be a special focus of our 
efforts; to improve resilience, generate increased income, provide 
better nutrition and break the cycle of food insecurity.
    Peace Corps is another successful program active in Malawi. A 
strong and historic program, Peace Corps volunteers have been working 
in Malawi since 1963. My wife, Anne, is a former Peace Corps volunteer, 
and I fully appreciate the impact that these incredible Americans have 
on building capacity in communities and ties between our peoples.
    Our security cooperation with Malawi is excellent. Malawi 
contributes to U.N. peace support operations on the continent. It 
currently has a battalion deployed in the Democratic Republic of the 
Congo with the Force Intervention Brigade and has pledged another 
battalion for a peacekeeping mission. Malawi also recently hosted 
AFRICOM's Southern Accord Exercise. I will build on this strong 
relationship, if confirmed, working with the Office of Security 
Cooperation to explore new partnership opportunities.
    Our work to reinforce democratic institutions and enhance 
government responsiveness to its citizens is at the core of our 
efforts. If confirmed, I anticipate witnessing Malawi's sixth 
consecutive peaceful, national democratic election in May 2019--a 
process supported by our governance programs.
    Mr. Chairman, if I am confirmed, I will vigorously pursue the 
safety and security of American citizens and ensure responsible 
stewardship of taxpayer dollars through effective leadership of U.S. 
Mission Malawi's strong interagency team.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I would be honored to respond to any questions.


    Senator Flake. Thank you, Mr. Scott.
    Ambassador Tamlyn.

STATEMENT OF HON. LUCY TAMLYN, OF NEW YORK, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO CENTRAL AFRICAN REPUBLIC

    Ambassador Tamlyn. Thank you, Mr. Chairman, Ranking Member 
Booker. It is a great honor for me to appear before you. I am 
grateful to President Trump and Secretary Pompeo for the 
confidence they have placed in me as their nominee for 
Ambassador to the Central African Republic. I am very happy 
that my husband, Jorge Serpa, is here today. Jorge is a 
tireless advocate for Foreign Service families.
    Mr. Chairman, Ranking Member Booker, I have served as a 
foreign officer since 1982, culminating with the privilege of 
serving as the U.S. Ambassador to the Republic of Benin. 
Assignments across three continents and in war zones have given 
me experience in balancing the imperatives of the diplomatic 
mission with the sacred mission of protecting lives.
    United States interests in the Central African Republic are 
primarily security and humanitarian. The Central African 
Republic is a mineral-rich country but largely ungoverned and 
dominated by armed groups. More than half of the country needs 
humanitarian assistance, of which the United States is the 
largest donor.
    Our primary U.S. objective is to help the elected 
government of President TouadCharge ra expand state authority. 
We support the African Union-led peace process, efforts to 
bring justice to victims of atrocities, and reestablishment of 
civilian security and justice capabilities.
    The United States is also the largest contributor to one of 
the most challenging U.N. peacekeeping missions in the world. I 
would like to pay tribute to the 75 MINUSCA peacekeepers who 
have lost their lives carrying out their mandate.
    If confirmed, I will seek to continue the leadership role 
which my predecessors so ably performed to keep the AU-led 
peace process on track. Progress requires coordination with 
other international actors, but must be consistent with U.N. 
Security Council resolutions. The safety of those under my 
authority will be my paramount concern, along with ensuring the 
best use of the resources entrusted to us by the U.S. taxpayer.
    Mr. Chairman and members of the committee, I recognize 
that, if confirmed, I will be assuming leadership of a post in 
a country of extreme fragility, one where our diplomatic 
presence has been suspended three times in the past 20 years. 
The Central African Republic has looked into the abyss, and 
seen, in the words of Henry Kissinger, that, quote, if order 
cannot be achieved by consensus or imposed by force, it will be 
wrought at disastrous and dehumanizing cost, from the 
experience of chaos, end quote.
    I hope that you agree with me that it is important to 
maintain a focus on the longer term, recognizing that there 
will be advances and setbacks, and that the United States has 
an important role to play here.
    If confirmed, I very much look forward to your advice and 
counsel on this challenging task, and I am very happy to take 
your questions.
    Thank you.
    [The prepared statement of Hon. Lucy Tamlyn follows:]


                 Prepared Statement of Hon. Lucy Tamlyn

    Mr. Chairman, Ranking Member Booker, and members of the committee, 
it is an honor for me to appear before you today. I am grateful to 
President Trump and Secretary Pompeo for the confidence they have 
placed in me as their nominee for Ambassador to the Central African 
Republic (CAR).
    My husband, Jorge Serpa, is here today along with other family 
members. Jorge has represented our nation by my side for over 27 years 
and been a tireless advocate for Foreign Service families.
    Mr. Chairman and members of the committee, I have served as a 
Foreign Service Officer since 1982, culminating with the privilege of 
serving as the U.S. Ambassador to the Republic of Benin. Assignments 
across three continents and in war zones have given me experience in 
balancing the imperatives of the diplomatic mission with the sacred 
mission of protecting lives.
    United States interests in the Central African Republic are 
primarily security and humanitarian. The Central African Republic is a 
mineral-rich but largely ungoverned territory the size of Texas. In the 
absence of state authority, local armed groups hold sway. More than a 
quarter of the population has been displaced over the past decade and 
more than half of the country needs humanitarian assistance.
    The primary U.S. objective in the Central African Republic is to 
help the elected government of President Touadera expand state 
authority to bring security to the country. We support the African-
Union-led peace process, efforts to bring justice to victims of 
atrocities, and re-establishment of credible civilian security and 
justice capabilities. U.S. humanitarian assistance brings succor to a 
population in desperate need.
    The United States is also the largest contributor to one of the 
most challenging U.N. peacekeeping missions in the world. I would like 
to pay tribute to the 75 U.N. peacekeepers who lost their lives 
carrying out their mandate in CAR.
    If confirmed, I will seek to continue the leadership role my 
predecessors so ably performed to keep the AU-led peace process on 
track. Progress requires coordination and thoughtful division of labor 
with other international actors, but must be consistent with U.N. 
Security Council Resolutions. The safety of those under my authority, 
Americans and local staff, will be my paramount concern, along with 
ensuring the best use of the resources entrusted to us by the U.S. 
taxpayer.
    Mr. Chairman and members of the committee, I recognize that, if 
confirmed, I will be assuming leadership of a post in a country of 
extreme fragility, one where our diplomatic presence has been suspended 
three times in the past twenty years. The Central African Republic has 
looked into the abyss, and seen, in the words of Henry Kissinger, that, 
``if order cannot be achieved by consensus or imposed by force, it will 
be wrought at disastrous and dehumanizing cost, from the experience of 
chaos.'' I hope that you agree with me that it is important to maintain 
a focus on the longer term, recognizing that there will be advances and 
set-backs, and that the United States has a role to play here. I look 
forward to your advice and counsel in this challenging task, if 
confirmed, and I am very happy to take your questions.


    Senator Flake. Thank you all for your testimony. And thank 
you to the families as well. You must be very proud.
    Mr. Cloud, with regard to Botswana, recently there was an 
uptick survey of elephants. Animal counts revealed that there 
have been a bunch slaughtered lately, and there is concern that 
some of the problems that have been mostly confined in terms of 
large-scale poaching to East Africa may move south, and 
Botswana has been, obviously, as you mentioned, the largest 
concentration of elephants on the continent by far. What can we 
do specifically? What programs are we undertaking right now to 
help them deal with this issue?
    Mr. Cloud. Thank you, Senator. I have consulted with the 
departments in the State Department and the--or the sections in 
the State Department and USAID who deal with conservation and 
biodiversity as well as the Department of Interior's Fish and 
Wildlife Service about the programs that are going on.
    First, there are quite significant deviations in the 
stories. If you look at the Elephants Without Borders versus 
the Government of Botswana story, it is 87 elephants versus 53. 
And we have actually sent our Fish and Wildlife attachCharge as 
well as our regional environmental attachCharge up to the area 
to confirm the stories. And I think continuing our programs to 
develop professional law enforcement--law enforcement 
professionals who deal in cross-border trade in combating 
wildlife trafficking and in countering poaching are some of the 
best ways that we continue to do that through the International 
Law Enforcement Academy, as well as through SADC, because the 
wild--the economic benefits of the diverse wildlife and 
ecosystem in southern Africa benefits all the SADC region 
countries, and I think that it would benefit everybody to--to 
combat--to work to fight this kind of wildlife poaching 
regardless of where they are from.
    Senator Flake. Well, great. We do have a good partnership 
with the government there. We have worked with them on this 
issue----
    Mr. Cloud. Yes, sir.
    Senator Flake.--and a number of other issues, PEPFAR. 
President Masisi has committed to move ahead and work with 
our--with, you know--in a partnership with us on many of these 
issues. So you are walking into a good situation there. 
Ambassador Miller did a great job in the previous post, and so 
look forward to your representation there if you are confirmed.
    Mr. Pelletier, with regard to Madagascar, we hear often--
you mentioned the issues of public health, reoccurrence of the 
plague every once in a while, and then on the resources as 
well, trying to make sure that the flora and fauna, the 
diversity that they have there and nowhere else, is preserved. 
What programs do we have that you can continue to work with on 
in the public health sphere as well as conservation?
    Mr. Pelletier. Thank you very much, Senator. You are 
absolutely right to point out the numerous development 
challenges that exist in Madagascar. And I think we have a good 
program working particularly through USAID that is focused on 
health, health issues, such as the plague and other disasters, 
sort of emergency issues, but also the longer term issues: 
water, sanitation issues, et cetera. That is probably the 
biggest part of the AID program. We also have a very active 
sustainable agriculture development program through USAID to 
try to support the people of Madagascar to meet their own 
development needs.
    I know that there are other parts of the U.S. Government 
that are focused on other details of the economic situation and 
economic growth for Madagascar, including Treasury and others. 
And then we have, as I mentioned earlier, a really vibrant 
Peace Corps program that has been in Madagascar for a long time 
with over 145 volunteers there separate from our other program 
in Comoros. So I think we have a wide-ranging program.
    The other challenge really I think is to try to coordinate 
with all of the other donors in Madagascar, including 
international bodies, to try to make sure that we have the 
maximum impact possible.
    Senator Flake. Thank you.
    Mr. Pelletier. Thank you.
    Senator Flake. Mr. Scott, with regard to Malawi, you 
mentioned the energy sector that has been a focus of ours for a 
while. How have things improved there in that sector, and how 
do we continue those gains?
    Mr. Scott. Thank you, Senator Flake. The MCC compact, a 5-
year program, $350 million, is winding up this month, but it 
has certainly put in a lot of capacity based on the hydropower 
that is dominant there. I also just recently had a chance to 
speak with some colleagues from OPEC, and they are looking at 
about 100 megawatts of solar power, which would also be brought 
onto the grid. So what we are seeing is a very positive trend 
line to try to bring more power provided to the population. 
Only 10 percent currently have access to energy, to 
electricity.
    So my sense is that our specific efforts have been very 
productive, that between MCC and OPEC, we have had a large 
impact in that sector. And if confirmed, I would certainly seek 
to ensure that the government takes full advantage of that 
program and makes the reforms necessary to take full advantage 
of those.
    Senator Flake. Thank you.
    Ms. Tamlyn, you mentioned in my office earlier today the 
government's authority only extends to about 15 percent of the 
country in the Central African Republic. How--what are we doing 
to expand that with the help of international partners?
    Ambassador Tamlyn. Thank you, Senator. Our primary tool is 
MINUSCA, the U.N. peacekeeping mission, which has approximately 
14,000 people on the ground. Through MINUSCA, we have been able 
to secure humanitarian corridors and also start to push back 
the armed groups a little bit, but it needs to be a double-
edged process with not only MINUSCA holding the ground in those 
key corridors, but also through our work with the government to 
stand up a national army and also to stand up a credible police 
and jund armed system. So we are doing this bit by bit. It is 
going to be a long-term process, though.
    One thing that--that is in our favor is that the Central 
African Republic is not that big a country, and we do feel that 
with the resources that we have been able to muster, that we 
will be able to make slow but steady progress.
    Thank you.
    Senator Flake. Thank you.
    Senator Booker.
    Senator Booker. Mr. Chairman, thank you. Thank you very 
much. And I'd pick up where Senator Flake left off. So more 
than 2 years ago, we know that President Touadera was 
inaugurated, and 4 years ago, as you just mentioned, MINUSCA 
was first deployed. Humanitarian and security conditions, 
though, have really deteriorated since we started those 
efforts. I am just not confident that I see a really cohesive 
strategy that is focused on improving the situation in the 
Central African Republic.
    And my senior Senator, Senator Menendez, who is not here 
but passionate about these issues, actually went to the floor 
and gave a really powerful speech that lays out a convincing 
case for a new strategic vision overall for the Central African 
Republic. And so I'd like to know what changes, if any, in 
diplomatic engagement, bilateral aid, military cooperation, or 
just general policy do you see that needs to be made?
    Ambassador Tamlyn. Thank you, Senator. Well, I think we 
need to keep on using all the tools at our disposal. We need to 
keep on using the multilateral peace process and insist that 
regional actors, strong regional actors, such as Chad and 
Sudan, are there at the table and pushing parties to peace. We 
need to continue to work with MINUSCA and make it a more agile 
and more effective organization. We need to obviously leverage 
our bilateral relationship with the government to try to make 
it stronger and more effective and understand who its real 
friends are in this long-term path ahead to a Central African 
Republic which is more stable and more secure.
    Thank you.
    Senator Booker. Thank you very much. It was interesting 
from my first trip to Africa seeing the influence of China and 
other competitors on the continent, and I am deeply concerned 
about reports of Russia's increasing influence in the country 
and what the Russian intentions are. I know that President 
Touadera has met with Putin and that Russia has received an 
exemption from the arms embargo to deliver weapons to the 
government. And now there are also reports of activities by 
Russian private military contractors, some apparently seeking 
to engage in extractive industries, and this obviously is a 
concern. So how do you assess the nature of Russia'sefforts, 
and how do you think the United States should respond?
    Ambassador Tamlyn. Thank you, Senator. That is a very 
important question and one that I think we are all working on 
right now. As you have noted, the Russian presence in part 
responds to a legitimate need of the Central African Republic 
army for equipment and training, but, as you note, the Russians 
are also leveraging this assistance to advance their commercial 
interests and to expand their influence. And they are also 
setting up parallel peace processes, which is both dangerous 
and unhelpful. I believe that the best path for the United 
States is to maintain a strong seat at the table with resources 
and through presence, and we have to make clear to President 
Touadera and to the Government that the United States and 
western donors are the best bet for the long-term progress of 
the country.
    My message to the CAR government, if confirmed, is that it 
needs to do its utmost to ensure that any commercial deals are 
transacted with full transparency and ensure that no sanctions 
redlines are crossed in the process. But definitely this is an 
important issue, and I will be continuing to track it very 
closely.
    Senator Booker. Well, thank you very much. If I can have 
one more question with you. I understand that the African 
Union-led peace mediation effort has really suffered in 
general, suffered from delays, a lack of will amongst armed 
groups, and an apparent lack of commitment amongst regional 
powers with influence. What would be required for the AU 
mediation initiative to be more successful? Do you think there 
needs to be a higher level of engagement from leaders in the 
region? And, again, what can we do, as the United States, to 
more robustly support that initiative?
    Ambassador Tamlyn. Thank you, Senator. I do agree that 
regional engagement is key to this. And, if confirmed, one of 
my highest priorities will be to make sure that I am able to 
work effectively with my colleagues in neighboring countries, 
as well as with multilateral institutions, so that we are 
bringing a real concerted pressure to bear on all of the 
parties to the--to the conflict.
    It is difficult--it is a difficult proposition, however, 
dealing with armed groups who have, let us face it, few 
incentives to put down their arms and seek other livelihoods. 
So I think we need to be creative and also in the long run 
thinking about, ultimately what kind of development programs 
are we going to be putting in place here that help the country 
grow and develop and create an investment climate that will 
encourage investment in the country and job creation?
    Senator Booker. Thank you very much.
    Mr. Cloud, I am going to go over some territory again that 
my friend and colleague Senator Flake went over, but it is just 
an issue that is very important for me. As you pointed out, 
American tourists are the biggest per capita spenders in 
Botswana. Ecotourism is an important part of diversifying 
Botswana's economy away from the extractive industries. 
Nevertheless, I understand legislation in Botswana have 
recently proposed lifting the ban on trophy hunting, 
specifically the ban on elephants. Botswana has long faced 
challenges from organized commercial poaching, but the country 
has made what I think are good efforts to halt poaching 
altogether, which should be recognized, and I am grateful for 
that.
    But it seems to me that the existing policy was farsighted 
on moral and economic grounds because there are many wildlife-
watching tourists. Those tourists provide an economic boon to 
the region and to farmers, and they are more numerous than the 
people who are interested in trophy hunting. Kthe net-net 
balance to me, seems very clear when I look at the numbers. 
Ecotourism and preserving these animals could be more helpful 
to the local communities.
    Could you go a little bit deeper on what the United States 
can do to support the protection of wildlife in Botswana. And 
are you concerned about the effect that lifting the hunting ban 
may have on wildlife populations and ecotourism? I really do 
believe that lifting the hunting ban may not even address the 
problem that a lot of the small farmers are concerned with in 
terms of protecting their crops.
    Mr. Cloud. Yes, sir. Thank you, Senator, for the question. 
It--in my consultations with both the Department of Interior, 
Fish and Wildlife Service, and the USAID and the Oceans and 
Environmental Sciences sections in the State Department, 
everybody seemed to have a consensus view that--that 
professional hunting, trophy hunting, if properly managed, can 
be a benefit to the country, but it is predicated on the 
ability of the country to properly control it and to ensure 
that the profits from that hunting are redirected back to the 
conservation and biodiversity of the--of the country, and to 
protect the natural resources.
    I am--not being on the ground there, I--I believe that 
broadly I have served in Zimbabwe and other countries where 
there were both professional hunting and ecotourism based on 
photographing and just game viewing, and seen it work 
successfully both ways.
    So if the Government of Botswana is able to successfully 
ensure that--that they have the--the controls and protocols in 
place, ultimately it is--it is their decision, and I understand 
that President Masisi is currently doing a round of 
consultations in the country to--to find out what--which way 
the country would like to--to move on this effort.
    Senator Booker. Well, it is an issue of great concern to 
me, so I hope we can stay in touch, if you are confirmed, when 
you get your feet on the ground. Maybe then you could talk to 
my team a little bit more about it.
    Mr. Cloud. Thank you, Senator.
    Senator Booker. Thank you, sir.
    Senator Flake. Well, thank you. Thank you for your 
testimony. We have two panels, so we will need to move to the 
other one. We appreciate your participation here. The hearing 
record will remain open until tomorrow night, so you will 
likely get some questions from some of the other members of the 
panel that were unable to be here. So if you could respond as 
quickly as possible, that would be great.
    And with that, we would invite the next panel to take their 
place. And thank you so much. And thank you to the families as 
well. [Panel change.]
    Senator Flake. Welcome to the second panel. And thank you 
for being here.
    Our first nominee is Mr. Stromayer, who is previously 
Acting Deputy Assistant Secretary for East Africa and the 
Sudans in the Bureau of African Affairs. Additionally, he 
served as Charge d'Affaires with--and the Deputy Chief of 
Mission Madagascar, and the Executive Director of the Bureau of 
African Affairs.
    The second nominee, Mr. Henshaw, who most recently served 
as senior advisor on health initiatives. Additionally, he 
served multiple positions in the Bureau of Population, 
Refugees, and Migration, eventually achieving the rank of 
Principal Deputy Assistant Secretary. And I understand you have 
had a family loss here, and appreciate you still being able to 
be here. So--so thank you.
    Mr.--let us see, the third nominee is Mr. Hankins, Dennis 
Hankins, our second confirmed Ambassador, this afternoon. He 
currently serves as Ambassador to the Republic of Guinea, 
previously served as Deputy Chief of Mission at the U.S. 
Embassy in Khartoum.
    And let us see, then Mr. Hearne, who is currently Principal 
Deputy High Representative in the Office of High 
Representatives in Sarajevo, Bosnia, and Herzegovina. 
Previously served Deputy Chief of Mission Afghanistan, Senior 
Advisor to the Under Secretary of State for Political Affairs.
    We look forward to all of your testimony.
    So please proceed, Mr. Stromayer.

  STATEMENT OF ERIC WILLIAM STROMAYER, OF VIRGINIA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
    OF THE UNITED STATES OF AMERICA TO THE TOGOLESE REPUBLIC

    Mr. Stromayer. Mr. Chairman and Ranking Member Booker, I am 
deeply honored to have the opportunity to appear before you 
today, and I am grateful to the President and Secretary Pompeo 
for the confidence that they have placed in me as their nominee 
to be the next Ambassador to the Togolese Republic.
    If confirmed, I will be honored and privileged to lead our 
Embassy team in working to advance the interests of the 
American people in Togo. I am immensely proud today to be 
joined by my wife of almost 21 years, Susmita Dastidar, and two 
of our daughters, Antara Helena and Lalita Leonora, all three 
of whom are behind me. And our eldest daughter, Aditi, is away 
at college. Also unable to join us is my 84-year-old mother, 
Sarah. She and my father, Jim, introduced me to this career. My 
father, who was a Foreign Service officer, died tragically 
young in 1983, but their lessons of decency, integrity, and 
patriotism have guided me throughout my life.
    My interest in West Africa began when I was a Peace Corps 
volunteer in Senegal in the early 1980s. My second assignment 
with the State Department was in Burkina Faso, and I visited 
Togo overland several times during my 3-year tour. 
Additionally, I served in Africa as Deputy Chief of Mission and 
Charge d'Affaires in Madagascar, held senior positions in the 
Bureau of African Affairs, have held senior positions in the 
Bureau of African Affairs, over the last 5 years, and was a 
desk officer for several West African countries. These 
experiences and other postings during my 29 years with the 
Department have prepared me for this next challenge, if 
confirmed.
    Togo has experienced some political instability over the 
past year. Despite broad consensus on several reforms, there is 
disagreement on the details, rooted in deep distrust between 
Togo's ruling party and the opposition that feels frozen and 
out of power. If confirmed, I would support and emphasize the 
role of law--rule of law, solid democratic institutions, and 
the role of civil society to encourage positive change.
    The Government of Togo has improved the country's 
investment climate, creating a special Presidential body to 
expedite reforms; however, much work lies ahead. Among my major 
objectives will be increasing transparency, tackling 
corruption, promoting trade and economic growth. Consolidating 
the economic reforms will be helped by a Millennium Challenge 
Corporation threshold program approved this year to further 
open the telecommunications market and improve land title 
registry, two critical constraints holding back Togo's own 
efforts to lift its people out of poverty.
    Thank you, Mr. Chairman and distinguished members of the 
committee, for this opportunity to appear before you. If 
confirmed, I will strive to reinforce our interests in a 
stable, prosperous, and peaceful Togo. I warmly welcome any 
questions.
    [Mr. Stromayer's prepared statement follows:]


                  Prepared Statement of Eric Stromayer

    Mr. Chairman, Ranking Member, and Distinguished Members of the 
committee, I am deeply honored to have the opportunity to appear before 
you today and am grateful to the President and Secretary Pompeo for the 
confidence they have placed in me as their nominee to be the next U.S. 
Ambassador to the Togolese Republic. If confirmed, I will be honored 
and privileged to lead our Embassy team in working to advance the 
interests of the American people in Togo.
    I am immensely proud today to be joined by my wife of almost 21 
years, Susmita Dastidar, and two of our daughters, Antara Helena and 
Lalita Leonora. Our eldest, Aditi Alexandra is away at college. Also 
unable to join us is my 84-year old mother, Sarah. She and my father, 
Jim, introduced me to this career so many years ago. My father, who was 
a Foreign Service Officer, died tragically young in 1983, but their 
lessons of decency, integrity and patriotism have guided me throughout 
my life.
    A recent commemoration of September 11 at the State Department and 
remembrances of the challenges all of us have faced over the years, 
reaffirmed for me all the reasons I am proud to be an American and to 
represent our nation overseas, if confirmed as an Ambassador.
    My interest in West Africa began when I was a Peace Corps Volunteer 
in Senegal in the early 1980s. My second assignment with the State 
Department was Burkina Faso, and I visited Togo overland several times 
during that three-year assignment. I have served in Africa as Deputy 
Chief of Mission and Charge d'Affairs in Madagascar, senior positions 
in the Bureau of African Affairs over the last five years, and as a 
desk officer for several West African countries. These experiences and 
other postings around the world during my 29 years with the State 
Department have prepared me for this next challenge, if confirmed.
    The United States and Togo enjoy a strong relationship and share 
broad mutual interests. Our policy priorities in Togo are to advance 
peace and security; promote fair trade and economic growth; strengthen 
democracy, human rights, and governance; and support opportunity and 
development. A stable, peaceful and prosperous Togo serves America's 
interests and expands Togo's ability to contribute to regional 
stability.
    Our highest priority is to advance peace and security. Despite a 
small population, Togo is currently the 15th largest contributor of 
peacekeeping forces in the world. We continue to help professionalize 
its security forces. Togo's military is graduating from the U.S. Africa 
Contingency Operations (ACOTA) to providing its own pre-deployment 
peacekeeping training, building capacity that I hope to continue to 
support if confirmed.
    Togo has experienced some political instability over the past year. 
Despite broad consensus on several of the reforms, there is 
disagreement on the details, rooted in deep-seated mistrust between 
Togo's ruling party and an opposition that feels frozen out of power. 
If confirmed, I would support and emphasize rule of law, solid 
democratic institutions, and the role of civil society to encourage 
positive change.
    The Government of Togo has improved the country's investment 
climate, with a special presidential body to expedite reforms. Togo's 
hosting of the African Growth and Opportunity Act forum provided 
momentum for modernizing its economy. Much work lies ahead. Increasing 
transparency, tackling corruption, and promoting trade and economic 
growth will be a major focus. A Millennium Challenge Corporation 
Threshold program approved this year will help consolidate and extend 
these reforms, further opening the telecommunications market and 
improving land title registry--the two binding constraints holding back 
Togo's own efforts to lift its people out of poverty.
    A fast-growing population has presented a significant youth 
unemployment challenge. The education system faces challenges from 
underfunding; infant mortality, maternal health, HIV/AIDs and malaria 
remain a concern. Humanitarian assistance and supporting the work of 
private American organizations in the health and education sectors are 
areas I would focus on, if confirmed.
    Thank you, Mr. Chairman and distinguished members of the committee 
for this opportunity to appear before you. If confirmed, I will strive 
to reinforce our interests in a stable, prosperous and peaceful Togo, 
with the ability to contribute to regional stability and advocate for 
the safety and security of American citizens and our interests in Togo. 
I warmly welcome any questions.


    Senator Flake. Thank you.
    I introduced you out of order, but we will go ahead 
straight through. So, Ambassador Hankins.

  STATEMENT OF HON. DENNIS B. HANKINS, OF MINNESOTA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
    OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF MALI

    Ambassador Hankins. Thank you, Mr. Chairman, Ranking Member 
Booker. I am honored to appear before you today as President 
Trump's nominee as the next Ambassador to the Republic of Mali. 
I appreciate the confidence he and Secretary of State Pompeo 
have shown in me through this nomination. If confirmed, I look 
forward to working with you and other Members of Congress to 
advance American interests in Mali. I would like to thank you, 
Mr. Chairman, for your support and this committee's support 3 
years ago when I was nominated to serve in the Republic of 
Guinea. I am proud that my son, Navy Lieutenant Danu Hankins, 
could be with me today, and also that my brother, Knute--and, 
Senator Booker, he manages a Mondel.z factory near Paramus. So 
not one of your constituents, but he does live in your State 
and do business there.
    Senator Booker. God bless him. [Laughter.]
    Ambassador Hankins. Unfortunately, my wife of 36 years, 
Mira, could not be with me today.
    My current assignment in Guinea has offered me the 
opportunity to help that country transition from the Ebola 
crisis and make real political, economic, and social progress. 
Postings in Sudan, the Democratic Republic of Congo, 
Mauritania, and Haiti have offered me opportunities for strong 
activist diplomacy. If confirmed, I will draw upon those 
experiences to deepen U.S.-Mali ties as we continue to work 
towards our top policy priorities in Mali, which are supporting 
the full and rapid implementation of the 2015 Algiers Accord, 
working with the Government of Mali, International Partners, 
and Mali's neighbors to respond to terrorists and criminal 
threats that undermine peace and security, not just in Mali, 
but throughout the region.
    And, finally, to ensure that our assistance supports those 
previous two priorities while also then helping the Malian 
people in areas of food security, health, education, 
governance, and economic growth.
    Mr. Chairman, if confirmed, I will work together with our 
partners to create greater stability and prosperity for the 
Malian people. I will vigorously pursue the safety and security 
of American citizens and advance U.S. interests in Mali.
    Thank you, Mr. Chairman, Ranking Member, Senator Risch, for 
seeing me today. I look forward and would be honored to respond 
to any questions.
    Thank you.
    [Ambassador Hankins's prepared statement follows:]


            Prepared Statement of Hon. Dennis Bruce Hankins

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to appear before you today as President Trump's 
nominee to be the next Ambassador to the Republic of Mali. I appreciate 
the confidence he and Secretary of State Pompeo have shown in me 
through this nomination. If confirmed, I look forward to working with 
you and other Members of Congress and staff to advance American 
interests in Mali.
    I am supported here today by my friends and colleagues from the 
State Department's Bureau of African Affairs and USAID. I am proud that 
my son, Navy Lieutenant Danu Hankins, could be with me today. 
Unfortunately, my wife of 36 years, Mira, could not attend. My career 
in the Foreign Service began in 1984 and has led me to challenging 
assignments all over the world. My current assignment in Guinea has 
offered me the opportunity to help that country transition from the 
Ebola crisis and make real political, economic, and social progress. I 
have sought out many opportunities in countries either in, or emerging 
from, conflict. Postings in Sudan, the Democratic Republic of Congo, 
Mauritania, and Haiti offered opportunities for strong diplomacy, where 
the effectiveness of our policies is immediately evident. If confirmed, 
I would draw upon these experiences and many others to deepen U.S.--
Mali ties as we continue to work towards our mutual goals of combating 
violent extremism, strengthening democratic governance and respect for 
human rights, and fostering inclusive economic growth.
    Mali faces serious challenges from growing terrorist threats, 
increasing communal violence, a frustratingly slow peace process, and 
severe poverty.
    Despite these obstacles, Mali recently held presidential elections 
for the second time since the military coup in 2012. It remains a 
willing counterterrorism partner, and we continue our partnership to 
bring development and economic opportunities to its people.
    Terrorists are vying for control of more territory in Mali than at 
any time since the 2012 crisis. Al-Qa'ida- and ISIS-affiliated groups 
have been expanding their areas of operational control from the north 
to the center. These threats are spilling over borders and 
destabilizing the Sahel region. While Malian security forces have a 
number of challenges, ultimately they must provide security throughout 
the country.
    The United States supports reforming and strengthening these forces 
so they can address these threats head-on through programs such as the 
International Military Education and Training, Security Governance 
Initiative, Trans Sahara Counterterrorism Partnership, Crisis Response 
Team training, and Defense Department's Joint Combined Exchange 
Training. These programs complement the efforts of our partners, 
notably France and the European Union, for whom an unstable Mali 
represents a direct threat, fueling terrorism, mass migration, and drug 
trafficking. At the same time, we continue to raise our concerns 
regarding serious human rights issues, including credible allegations 
of serious human rights violations by Malian security forces. The 
Government of Mali has a responsibility to extend its presence with key 
services, including education and health care, throughout the country 
to benefit all of its people.
    Mali, together with its neighbors Burkina Faso, Chad, Mauritania, 
and Niger, have formed the G5 Sahel Joint Force, an African-led, 
African-owned response to terrorism and banditry that plagues the Sahel 
region, particularly in the Mali-Niger-Burkina Faso tri-border area. 
The United States supports this effort through bilateral support to the 
G5 members, pledging an initial $60 million to the members of the Joint 
Force. We recognize the Joint Force is a long-term project and want to 
set it up for success. This means that our focus should be on not only 
operational support, but also law enforcement, civilian-military 
relations, the promotion respect for human rights, accountability, and 
stabilization activities. In addition to support for the G5 Sahel Joint 
Force, we support the French-led counterterrorism operations and 
efforts to build the defense capacity in Mali and its neighbors working 
to contain the regional threat.Part of the reason that terrorist groups 
have been gaining operational space is the unacceptably slow pace of 
implementation of the 2015 Algiers Accord for Peace and Reconciliation 
in Mali. By not living up to their commitments, the signatory parties 
perpetuate instability that threatens the entire region.
    MINUSMA, the most deadly peacekeeping mission in the U.N. system, 
is a vital element in creating enabling conditions that allow for 
implementation of the Algiers Accord. We provide significant 
contributions to MINUSMA by funding 25 percent of the mission costs, 
training and equipping troops deploying to MINUSMA, and providing 27 
U.S. military observers for support. It is costly and dangerous. The 
sacrifice of so many should not be for naught.
    It is ultimately the parties themselves that must show the 
political will to make compromises and act on their commitments. If 
confirmed, I will redouble our efforts, along with those of our 
international and regional partners, to bring the parties to action. In 
particular, I will focus on the actions called for by U.N. Security 
Council Resolution 2423 (2018) that include: decentralization of state 
services; setting up interim authorities in northern Mali; integration 
of at least 1,000 members of signatory armed groups into Malian 
security forces; joint patrols by mixed units from the signatory 
parties; establishment of the Northern Development Zone; and ensuring 
equal and meaningful participation of women in the implementation of 
the peace process.
    Underlying the terrorist threats and the conflict in Mali's north 
is the desperate poverty of the country. A growing youth population 
that lacks economic opportunities, corruption, ineffective governance, 
lack of capacity, growing instability, extreme poverty, and communal 
violence all contribute to challenging conditions in Mali. The United 
States is the largest bilateral donor to Mali, and we intend to 
maintain our strong partnership for development and stability. Our 
assistance promotes democracy and improved governance as well as 
increases sustainable livelihoods. USAID programs also improve maternal 
and child health and reduce the incidence of malaria in Mali. The 
United States will continue encouraging economic growth and opportunity 
by supporting sustainable development and increased U.S. economic 
investment.
    Mr. Chairman, if confirmed, I will work, together with our 
partners, to create greater stability and prosperity for Malians. I 
will vigorously pursue the safety and security of American citizens and 
advance U.S. interests in Mali. I will ensure responsible stewardship 
of taxpayer dollars through effective leadership of U.S. Embassy 
Bamako's strong interagency team.
    Thank you for the opportunity to appear before you today. I would 
be honored to respond to any questions.


    Senator Flake. Thank you.
    Mr. Hearne.

STATEMENT OF DENNIS WALTER HEARNE, OF VIRGINIA, A CAREER MEMBER 
   OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
        STATES OF AMERICA TO THE REPUBLIC OF MOZAMBIQUE

    Mr. Hearne. Thank you very much, Mr. Chairman, Ranking 
Member Booker, Senator Risch. It is an honor for me to appear 
before you today as the President's nominee to be the next 
United States Ambassador to the Republic of Mozambique. I am 
profoundly grateful for this opportunity and the confidence 
that the President and the Secretary have placed in me. If 
confirmed, I look forward to working closely with you to 
advance and protect American interests in Mozambique.
    I was sworn into the Foreign Service in 1985, and my 33-
year career has spanned six countries and two wars, affording 
me the extraordinary honor of serving my country alongside many 
distinguished and heroic colleagues. I am deeply grateful. I 
cannot imagine a more rewarding life.
    Yet this would be my first time in Mozambique and Africa, 
and I am professionally and personally inspired by that 
prospect. On a personal level, while my son Christopher, here 
today, is busy with school in Virginia and will not be joining 
me at post, he is very excited about the chance to visit me and 
get to know a wonderful country and continent, particularly its 
beaches. My parents, in their eighties, who have lovingly 
supported me throughout my career, are also hoping to make it 
over for a visit.
    On a professional level, I believe I have a blend of 
experience that, while gained in other places, is particularly 
relevant for Mozambique at this time. I have been speaking 
Portuguese for 3 decades, and that can be a key facilitator for 
my engagements with both officials and people from all walks of 
life. If they chuckle a bit at my Brazilian accent, that is 
okay, it will be an icebreaker.
    In addition, I have served in wartime in the Balkans and in 
Afghanistan, and I understand well the challenges of recovery 
from and prevention of armed conflict. My familiarity with 
these issues will be helpful in supporting Mozambique's 
political leadership both to implement their recent peace 
agreement and to consolidate democracy and security.
    I believe we have a moment of opportunity now to 
consolidate encouraging gains in political stability in 
Mozambique following the 2016 cessation of hostilities and the 
recent peace agreement, and to get ahead of developing threats 
in the northern part of the country. We would accomplish this 
in cooperation with Mozambique's leaders and using a whole-of-
government approach that could also leverage resources from the 
private sector and civil society.
    I am eager to move ahead creatively, knowing from 
experience that building a solid platform of improved 
governance and effectively fighting corruption will be as 
critical for success in Mozambique as they are elsewhere.
    Reconciliation and stability will allow the country to 
capitalize on its vast natural resources, including one of the 
world's largest natural gas deposits. U.S. companies are 
preparing to invest $40 billion to develop liquefied natural 
gas in northern Mozambique, among the largest investments in 
Sub-Saharan Africa.
    Mozambique's expanding economy also depends on the ability 
to address development challenges and values the development--
and Mozambique values the development assistance the United 
States provides to support peace and security, democratic 
institutions, human rights, a healthy and educated population, 
and sustainable, inclusive economic growth. The U.S. is the top 
bilateral donor to Mozambique with the majority of our support 
focused on health programs, notably PEPFAR, and that is our 
largest assistance program in Mozambique.
    Thanks to the generosity of the American people, more than 
1 million people living with HIV are now on lifesaving 
treatment, and, if confirmed, I will continue to vigorously 
support those efforts.
    Mr. Chairman, members of the committee, I want to thank you 
for the privilege of appearing before you today. If confirmed, 
I will aim to exemplify the highest standards of our great 
nation and look forward to partnering with you to advance 
America's interests in Mozambique.
    Thank you, and I look forward to your questions.
    [Mr. Hearne's prepared statement follows:]


                 Prepared Statement of Dennis W. Hearne

    Chairman Flake, Ranking Member Booker, and distinguished members of 
the committee, it is an honor for me to appear before you today as the 
President's nominee to be the next United States Ambassador to the 
Republic of Mozambique. I am profoundly grateful for this opportunity 
and the confidence President Trump and Secretary Pompeo have placed in 
me. If confirmed, I look forward to working with you to advance and 
protect American interests in Mozambique.
    I was sworn into the Foreign Service in 1985, and my 33-year career 
has spanned six countries and two wars, affording me the extraordinary 
honor of serving my country, alongside many distinguished and heroic 
colleagues. I am deeply grateful--I cannot imagine a more rewarding 
life. Yet this would be my first time in Mozambique and Africa, and I 
am professionally and personally inspired by that prospect. On a 
personal level, while my son Christopher is busy with college here in 
Virginia and won't be joining me at post, he is also excited about the 
chance to visit me and get to know a wonderful country and continent. 
My parents, in their 80s, are also planning to come over.
    On a professional level, I believe that I have a blend of 
experience that, while gained in other places, is particularly relevant 
for Mozambique at this time.
    I have been speaking the Portuguese language for three decades--
that can be a key facilitator for my engagements with both officials 
and people from all walks of life. If they chuckle a bit at my 
Brazilian accent, that's OK--it will be a good ice breaker. In 
addition, I have served in wartime in the Balkans and Afghanistan and 
understand the challenges of recovery from and prevention of future 
armed conflict. My familiarity with these issues and extensive 
background in working with our military will be helpful in supporting 
Mozambique's political leadership both to implement their recent peace 
agreement and to consolidate democracy.
    I believe we have a moment of opportunity now to consolidate 
encouraging gains in political stability in Mozambique, following the 
2016 cessation of hostilities and recent peace agreement, and to get 
ahead of developing threats in the northern part of the country. We 
would accomplish this in cooperation with Mozambique's leaders and 
using a whole of U.S. Government approach that could also leverage 
resources from the private sector and civil society. I am eager to move 
ahead creatively, knowing from experience that building a solid 
platform of improved governance and effectively fighting corruption 
will be as critical for success in Mozambique as they are elsewhere.
    Reconciliation and stability will allow the country to capitalize 
on its vast natural resources, including one of the world's largest 
natural gas deposits. U.S. companies are preparing to invest $40 
billion to develop liquefied natural gas in northern Mozambique, among 
the largest investments in sub-Saharan Africa. Mozambique's expanding 
economy also depends on its ability to address significant development 
challenges, and Mozambique values the development assistance the United 
States provides to support peace and security, strong democratic 
institutions, respect for human rights, a healthy and educated 
population, and sustainable and inclusive economic growth. The United 
States is the top bilateral donor to Mozambique with the majority of 
our support focused on health programs, notably the President's 
Emergency Plan for AIDS Relief (PEPFAR), our largest assistance program 
in Mozambique. Thanks to the generosity of the American people, more 
than one million people living with HIV are now on life-saving 
treatment, and if confirmed, I will continue to vigorously support 
these efforts. In all of these areas, if confirmed, I will be fortunate 
in building on the superb work of Ambassador Pittman and his team.
    Mr. Chairman and members of the committee, I want to thank you for 
the privilege of appearing before you today. If confirmed, I will aim 
to exemplify the highest standards of our great nation and look forward 
to partnering with you to advance America's interests in Mozambique. It 
is a duty and responsibility I would be honored to accept. Thank you 
and I welcome any questions you might have now and in the future.


    Senator Flake. Thank you.
    Mr. Henshaw.

 STATEMENT OF SIMON HENSHAW, OF MASSACHUSETTS, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF GUINEA

    Mr. Henshaw. Mr. Chairman and members of the committee, I 
am deeply honored to appear before you today and grateful to 
President Trump and Secretary Pompeo for the confidence they 
have placed in me as their nominee for Ambassador to the 
Republic of Guinea.
    I want to recognize the attendance of my wife, Jackie 
Greene, and my daughter, Maddie Henshaw Greene. Jackie is 
originally from New Jersey. [Laughter.]
    Mr. Henshaw. My second foreign assignment was in Abidjan, 
and my wife and I have fond memories of our time there 
traveling throughout the country and region. In fact, we were 
married by the Mayor of Abidjan.
    More recently, I traveled to the continent three times in 
my last assignment in the Bureau of Population, Refugees, and 
Migration. Most of my career has been in the developing world, 
and I have extensive experience working with USAID and other 
developmental actors, particularly on democracy, human rights, 
and good governance. Throughout my career, I have worked on 
election issues.
    Despite Guinea's proud history of independence, it was only 
in 2010 that Guineans finally embraced democracy. With programs 
such as our efforts through USAID to assist the National 
Election Commission in revising the electoral code, to our 
participation as an observer in the national political 
roundtable, we remain committed to helping Guinea complete its 
democratic transformation.
    The 2013-2016 Ebola epidemic killed over 2,500 people in 
Guinea alone and significantly set back the country 
economically. However, with the assistance of the international 
community, including the United States, Guinea overcame that 
horrible illness.
    Today, the economy is growing faster than anticipated, 
sustained mostly by strong mining activity, construction, and 
agriculture. With the assistance of the Overseas Private 
Investment Corporation in 2016, U.S. investors were able to 
expand mining operations in Guinea. In addition, the U.S. 
company Endeavor was able to break ground this year on a 50-
megawatt power plant.
    Concerning peace and security issues, we support efforts to 
reform Guinea's security institutions and greatly appreciate 
Guinea's peacekeeping work, including in Mali.
    If confirmed as the 22nd U.S. Ambassador to the Republic of 
Guinea, my objectives will be to continue to support and 
encourage the ongoing democratic process; economic development, 
including more advocacy for U.S. investment and economic 
diversification; improved public health; and a stronger 
security partnership.
    Thank you, Mr. Chairman and members of the committee, for 
the opportunity to address you today. If confirmed, I look 
forward to working with you in representing the interests of 
the American people in Guinea. I am happy to answer any 
questions.
    [Mr. Henshaw's prepared statement follows:]


                  Prepared Statement of Simon Henshaw

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today, and grateful to President Trump and Secretary 
Pompeo for the confidence they have placed in me as their nominee for 
Ambassador to the Republic of Guinea. I want to recognize the 
attendance of my wife, Jackie Greene.
    My second Foreign Service assignment was in Abidjan, and my wife 
and I have fond memories of our time there traveling throughout the 
country and region. In fact, we were married by the mayor of Abidjan. 
We look forward to returning to the region. I traveled to the continent 
three times in my last assignment in the Bureau of Population, 
Refugees, and Migration. Most of my career has been in the developing 
world and I have extensive experience working with USAID and other 
developmental actors, particularly on democracy, human rights, and good 
governance. Throughout my career, I have worked on election issues in 
the Philippines, El Salvador, Honduras, and Russia.
    On October 2nd, Guinea will celebrate 60 years of independence. 
Despite Guinea's proud history of independence, it was only in 2010 
that Guineans finally embraced democracy. From working through USAID to 
assist the national election commission in revising the electoral code, 
to our participation as an observer in the national political 
roundtable, we remain committed to helping Guinea complete its 
democratic transformation. Just as positive political and economic 
trends were starting to take shape, however, the 2013-2016 Ebola 
epidemic struck Guinea and other countries in the region and beyond, 
killing over 2,500 people in Guinea alone, and significantly setting 
back the country economically. However, with the assistance of the 
international community, including the United States, Guinea overcame 
that horrible affliction.
    Today, the country is looking toward the future. The economy is 
growing faster than anticipated, sustained mostly by strong mining 
activity, construction, and agriculture. With the assistance of the 
Overseas Private Investment Corporation, in 2016, U.S. investors were 
able to expand mining operation in Guinea in an environmentally 
friendly and community responsive way. In addition, the U.S. company, 
Endeavor, was able to break ground this year on a 50 megawatt power 
plant in the capital of Conakry. While remaining challenges are great 
and the work to be done is daunting, the United States will remain a 
committed partner in support of Guineans as they pursue their 
aspirations toward more robust democratic institutions and stronger and 
more inclusive economic growth. Concerning peace and security issues, 
we support efforts to reform Guinea's security institutions and greatly 
appreciate Guinea's peacekeeping work, including its deployment to the 
United Nations Multidimensional Integrated Stabilization Mission in 
Mali (MINUSMA).
    If confirmed as the 22nd U.S. Ambassador to the Republic of Guinea, 
my objectives will be to continue to support and encourage the ongoing 
democratic process; to promote economic development, including more 
advocacy for U.S. exports, investment and economic diversification; 
improved public health; and a stronger security partnership.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to address you today. If confirmed, I look forward to 
working with you in representing the interests of the American people 
in Guinea. I am happy to answer any questions.


    Senator Flake. Thank you.
    Thank you to all of you.
    Mr. Hearne, with regard to Mozambique, you mentioned the 
large investment in natural gas. What U.S. companies are 
involved there?
    Mr. Hearne. Thank you very much for the question. Both 
ExxonMobil and Anadarko are leading international consortium 
that are moving ahead with probably taking decisions over the 
next year about concerning potentially a $40 billion total 
investment. So those are the two main firms. Anadarko is 
already present in the country in a significant way. And I look 
forward to meeting with them, if confirmed, in the near future.
    Senator Flake. Well, thank you.
    Mr. Hankins, with regard to Mali, we invest in security 
issues there, the G5 countries, some of the other countries. Do 
you want to talk about that, that cooperation that we have in 
the region and what that involves?
    Ambassador Hankins. Yes, sir. Recently the bordering 
countries, through the G5, have come together to try to help 
Mali in handling its security threats. The northern part of the 
country for nearly 20 years has been essentially ungoverned, 
and we have seen that threat spill over and seen terrorist 
attacks. When I was in Mauritania 10 years ago, terrorists came 
and killed an American missionary in the capital when I was 
there. We have seen spillover into Niger, into Cote d'Ivoire, 
into Burkina Faso. So we see these countries coming together 
through the G5 to increase border security to help then on the 
counterterrorism part. The U.S. Government has so far already 
earmarked $60 million to help those countries in that 
operation.
    We continue to have differences with those countries and 
with the French that are looking for a long-term stable 
financing arrangement. We certainly welcome and see the need 
for these countries to deal jointly on what is a regional 
threat. And we are more than prepared to help them bilaterally 
in that effort, but at this point, we do not support then 
seeing it as a Chapter 7 operation financed through financing 
mechanisms.
    Senator Flake. Thank you.
    Mr. Henshaw, with Guinea, the Ebola outbreak that occurred 
within three countries--Sierra Leone, Liberia, and Guinea--
Guinea was perhaps the most difficult, the remote part, to 
arrest it. What are we doing to make sure that we do not have 
the renewed outbreak? What are we doing in terms of cooperation 
in public health?
    Mr. Henshaw. Thank you for the question, Senator. USAID's 
program in Guinea is mostly health care. I think $23 out of the 
$25 million a year that we have been spending there is for 
health. And that program will continue. CDC is there, as is 
NIH. They have set up an excellent countrywide system for early 
detections of diseases, but human and animal, which in the 
future will hopefully get to stop--get to stop a disease before 
it reaches the--the level that Ebola did before.
    Senator Flake. Thank you.
    Mr. Hearne, we talked a little with the last panel, 
Botswana in particular, and wildlife preservation, conservation 
efforts. Mozambique has certainly a large land mass that 
borders almost on Kruger Park, where a number of--well, long-
term poaching issues there. Also, I was able to visit 
Gorongosa, where a significant investment from an American, 
Greg Carr, in cooperation with a number of colleges and 
universities and NGOs, who has really done some extraordinary 
things there. How can we, the U.S. Government, help promote 
efforts that are going on in the nongovernmental organization 
area?
    Mr. Hearne. Thank you very much, Senator. I--I--I think we 
are, as with some of the other areas I covered, at a moment of 
opportunity here. President Nyusi has shown himself to be quite 
proactive and interested in conservation and countering 
poaching. He has--he has made some significant changes to 
legislation to reinforce and fortify penalties and the ability 
to prosecute those cases.
    With regard to our direct involvement, as you say, in 
Gorongosa, USAID has partnered regularly with the Carr 
Foundation. We have had an investment there through that 
cooperation of about $11 million, and that is proceeding. Also, 
in Niassa, we are working closely with the wildlife conservancy 
NGO there, and in Limpopo as well with the World Wildlife 
Foundation.
    So I think these partnerships with NGOs, public-private 
partnerships, that we participate in directly, including 
financially, coupled with an encouraging attitude on the part 
of President Nyusi and his administration on this subject, give 
us a lot of room to expand, and I look forward to building on 
my predecessor's work in that area.
    Senator Flake. Right.
    Mr. Stromayer, with Togo, they contribute to U.N. 
peacekeeping efforts. That is one of the areas where they have 
some income. Will that continue? And are we working with them 
in that regard? What military cooperation or education efforts 
do we have with them--or, I am sorry, cooperation, military 
training, and whatnot?
    Mr. Stromayer. Thank you for that question, Senator. It is 
an opportunity to highlight one of the great areas in which we 
cooperate with the Togolese, though one of the smaller 
countries on the continent with a population of barely 7 
million, they contribute 1,400 troops to U.N. peacekeeping 
operations, which makes them one of the 15 largest--they are 
the 15th ranked contributor to such operations in the world. 
And they have had losses in deployments in Mali, which they 
have--they have performed very well in those deployments. In 
fact, I understand with reference to the panel, that, in fact, 
they are proposing to deploy an additional 700 troops to 
supplement what is going on in CAR.
    We have been their partner of choice over the years, both 
through IMET and ACOTA. We have provided significant support to 
their decision, I believe it is in the last 5, 10 years, to 
play a role in peacekeeping, and so much so that at this point 
they have, as we put it, graduated from ACOTA, they are doing 
some of their own training now, and we are scaling that back. 
But our IMET commitment remains, though it is relatively small. 
And I expect to do everything I can to improve and continue 
that cooperation with the Togolese military.
    One of the other things in my research so far that I was 
struck by is that they have a partnership with North Dakota, of 
all States, on the--or sort of the--what is it? The reserve 
training program where we get our North Dakota National Guard, 
excuse me, out there and working with them, and that is a great 
partnership that I would hope to be able to continue and 
foster.
    Senator Flake. North Dakota, Togo, it is all the same. 
[Laughter.]
    Senator Flake. Thank you.
    Mr. Stromayer. My pleasure, sir.
    Senator Flake. Senator Booker.
    Senator Booker. I am going to defer to my much more senior 
Senator, Mr. Risch, and----
    Senator Risch. In what regard did you mean that?
    Senator Booker. I meant just in years of service, sir. We 
are clearly the same age. And you have a lot more hair than me, 
sir, so I respect you. [Laughter.]
    Senator Risch. Well, thank you.
    Actually, Mr. Hearne, I came up here to specifically talk 
to you because Idaho has a very distinct connection to 
Mozambique. You mentioned Gorongosa, and Mr. Carr, he, of 
course, is a citizen of Idaho, and we are glad to have him. And 
what he has done there has been nothing but heaven's work. I 
mean, he went in there after the civil war and single-handedly 
took Gorongosa from nothing, in decimation, to what it is 
today, where it is coming back.
    I think there are a lot of people familiar with that work. 
Certainly, it is a model of ways to do this. He got a little 
pushback because he did it differently than some of the other 
conservation groups do it, where he recognized that the 
stability of the populace was--had to come before the stability 
of the animal populations because it just--it would not work in 
the reverse. And he has been--he has been very dedicated to 
that, and, of course, as a result of that, a lot of us have 
come to know the officials in Mozambique, and they certainly 
say the right things, which we are glad to do, and they are 
doing the--doing the right things where they can.
    The questions I have for you have to do with the civil war 
has been quite some time ago, but nonetheless, they get flare-
ups every once in a while, and every time that happens, of 
course, it makes you a little--it makes the hair on the back of 
your neck stand up and wonder, you know, is this going to take 
off again, because it was so devastating the last time it 
happened?
    What is your prognosis on that? What are your thoughts on 
that? Are you convinced the government is doing enough and got 
a good enough handle on this to tamp down anything that arises?
    Mr. Hearne. Yes. Thank you very much, Senator. It is a 
subject that I have been thinking a great deal about as I have 
been preparing to, if confirmed, assume responsibilities in 
Mozambique. This is a center of gravity for me. I think it is 
essential to the consolidation of democracy, security, and 
stability in the country that we see a successful way forward.
    Early indications are encouraging, but it is early days. We 
are seeing in October the--the local and municipal elections, 
which will be kind of the pilot really for the decentralization 
aspect of the agreement reached between Frelimo and Renamo. If 
that is successful, and certainly there will be lessons to be 
gleaned from it, it would be encouraging and a hopeful sign for 
the general election next year in which again decentralization 
of power and greater democratization is supposed to be part of 
what has been agreed to.
    On the military side, we are really at the beginning of a 
demobilization effort, demobilization for the second time in 
some ways, where again it appears that President Nyusi is very 
forward-leaning and wanting active international engagement. He 
has invited the United States and a number of other partners 
to--to provide observers and support for this process. We--we 
have already a State Department officer going out very soon to 
fill that role, and we will look at having it staffed on an 
enduring basis.
    But given that the size of the forces now are not what they 
once were, given the--given that, the age of some of the 
combatants, indications that President Nyusi is going to 
support integration into the armed forces of some of these 
combatants, then I think that there is real potential here to 
get it right this time.
    And the other center of gravity that I think we have to be 
aware of on the stability side is the evolving potential threat 
in the northwest around the Cabo Delgado region. It is early 
days. We are still trying to get a better understanding of what 
we are seeing there. We have had one interagency evaluation 
team out there at the end of last year. We have another one on 
the ground right now. So we hope to get more fidelity on that 
and see with that information what kind of support and strategy 
we can work with the Mozambicans on to get ahead of that issue 
early on. And I am committed, if confirmed, to vigorously and 
creatively looking at an approach for that.
    Senator Risch. I was going to ask about the northwest 
because I think my sense is that that seems to be the center of 
the difficulties there. And you say you are working on that. Do 
you have any sense at all, any granularity on that at this 
point, as to, is it an individual? Is it a group of 
individuals? How--what is your--what is your sense on that?
    Mr. Hearne. Well, again, early days and most of the 
information I have--I have had access to is open source, but 
what we think we are seeing is something that began its 
evolution around 2014, 2015. It is----
    Senator Risch. Is that when they were having the incidents 
with the trains, the transportation system, up there?
    Mr. Hearne. I--I think that was around that time and into 
2016. The--the early attacks were primary against police 
stations, and increasingly that are worrisome, we have seen 
them against civilians, including quite recently, just last 
week.
    It appears at this point--and again we are proceeding 
cautiously with our evaluation--to be a relatively small and 
relatively contained phenomenon. It does, at least by their own 
rhetoric, have an ideological dimension to it, a religious 
ideological dimension, one that is worrisome to and resisted by 
mainstream Islamic leaders in Mozambique. They have a very 
different tradition, of course, there.
    And so I think given that even though it is in a large 
ungoverned space, given that it is still--and does abut, of 
course, border with Tanzania, that it is still geographically 
and in terms of size relatively contained, and we need to work 
to get ahead of it quickly. And I think, again, a whole-of-
government approach, once we have more fidelity on what we are 
dealing with, closely in coordination with the Mozambicans and 
with regional networks on counterterrorism, and leveraging the 
interests of the private sector, the companies that are going 
to be investing in this LNG development, which is directly 
related to this area, that is the littoral support platform for 
that activity, I think we can try to be creative in looking at 
ways to address any genuine local grievances or frustrations, 
drivers, while also working intelligently on the security and 
the civil affairs dimensions of this.
    Senator Risch. Thank you, Mr. Hearne. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Mr. Booker.
    Senator Booker. Thank you very much.
    Ambassador, first of all, I am grateful for our time 
together and your willingness to meet, not just with me, but my 
two colleagues.
    Since the coup in 2012, Mali has not been a major recipient 
of U.S. aid, military aid specifically. Since then, the Malian 
military has been implicated in numerous human rights abuses--I 
think we mentioned this a little bit in our private 
conversation--during their counterinsurgency deployments in 
particular in central Mali. As Mali's defense minister 
acknowledged in June, a recent study by the Simon-Skjodt--
Center for Prevention of Genocide, warned that overlapping 
violence amongst jihadists, Malian security forces, and 
communal self-defense groups could produce a lot of mass 
atrocities. And there seems to be a lot of concern, especially 
in northeastern Mali.
    What is your understanding of our current assistance to the 
security forces? Is the United States considering increasing or 
expanding its assistance to those security forces to include 
training, advice, and equip assistance? And if so, to what 
extent is the Leahy human rights vetting a challenge for U.S. 
assistance to the military?
    Ambassador Hankins. Thank you, Senator. As you note, it is 
a challenge. At the same time, we are asking the government to 
reestablish its presence and authority in the northern parts of 
the country, but a country--a military that has a history of 
human rights abuses. Particularly through the security--the SGI 
initiative, we have been working on trying to build the 
institutions themselves, sending people to the U.S. to build a 
corps of the National Security Agency, National Security 
Council. We have been engaging in trying to make it a more 
professional entity.
    There are, of course, major partners. The French have 
significant influence. And we are looking at how we can expand 
our direct engagement with the Malian armed forces. But up into 
there, our goal is not just to supplement what others are 
already doing, whether it is the European Union, which has 
training activities, or the French. I know we are looking, for 
instance, at looking at counter-IED training. We are looking at 
JCETs that then offer more opportunity to do exercises.
    We do have challenges as well because the Malian government 
works not only through their own armed forces, but they work 
then through armed groups, many of whom, like GATIA, have 
problems in terms of child soldiers and the rest.
    It is an area where you have terrorist organizations that 
create atrocities in their own right. As we discussed, it is 
always government troops must be held to a higher standard. If 
the government troops do not respect their own uniform, then 
they will--at no time will the population respect that uniform.
    So our goals are to build their capacity, to make them more 
professional, to make sure that they are inclusive of the 
population. It is a--a challenge because there are units, there 
are individuals, that have created human--that have done human 
rights violations in the past. The Leahy vetting is an 
important part and a key part to make sure that none of those 
advance, but, again, we do not have partners that are 100 
percent ideally what we would want, but if the peace process--
if stability is going to be successful, those partners must 
eventually reestablish authority, they must gain the confidence 
of the Malian people, and they must be present throughout the 
whole country.
    Senator Booker. Thank you very much, sir, for that 
substantive answer.
    Mr. Henshaw, U.S. bilateral aid for Guinea has 
overwhelmingly focused on global health, $21.5 million in 
fiscal year 2017. In line with the administration's proposal to 
cut foreign aid worldwide. It proposed $3.2 million in aid for 
Guinea in fiscal year 2018, which is an 88 percent decrease 
from the fiscal year 2017 actual allocation of $26.1 million. 
Congress largely did not adopt the administration's aid and 
budget proposals. I have been really grateful about the 
bipartisan nature of the support for aid from my colleagues on 
the right and the left.
    What would be the effect in Guinea of such a dramatic cut 
in foreign assistance, as previously proposed by the 
administration?
    Mr. Henshaw. We remain committed to supporting Guinea's 
attempts and work to improve its health system. I think as time 
goes on, we need to encourage the Guineans to put more and more 
of their own resources in, and we have seen that happen in the 
past few years. Guinea has increased its own health budget from 
less than 3 percent of the total budget to over 8 percent. But 
I do think that we need to continue our own assistance for 
several more years in order to help them move forward and make 
sure that we do not return to the situation we saw 5, 6 years 
ago with Ebola.
    Senator Booker. Thank you very much, sir. That was more a 
question to see how good of a diplomat you are because I tried 
to get you to criticize the administration, and you dealt with 
that so aptly. [Laughter.]
    Senator Booker. I am going to come back to you, though. You 
have got one more test. [Laughter.]
    Senator Booker. Mr. Stromayer, in August 2017, opposition 
groups united to push for democratic reforms in a transition 
from roughly 5 decades of presidential rule by members in the 
GnassingbCharge family. The economic community of West African 
states has been facilitating an end to this crisis, as I am 
sure you know. ECOWAS urged the adoption of constitutional 
reforms, a two-round presidential voting system, and term 
limits, but did not address the key matter of GnassingbCharge 
's future electoral eligibility.
    To what degree should we engage in this critical issue of 
term limits?
    Mr. Stromayer. Well, the issue of term limits, Senator, is 
obviously one that gets a lot of discussion at different 
levels. I think your question is very timely. As it happens, 
literally in the last several days, the ECOWAS-led mediation 
has succeeded in getting the opposition and the government to 
agree to move forward with parliamentary elections that are 
planned for the end of this year, which is a very positive 
sign. There have been threats of boycotting.
    The issue of term limits remains the challenge, the big 
challenge. How do they play that out? Certainly, the G5 has 
been mentioned up here. There is a G5 in Togo, which consists 
of us, the French, the Germans, and the U.N., and the EU, who 
have been playing a role in encouraging all parties, the 
opposition and the government, to work together with the ECOWAS 
mediation to find a way forward through this thicket, to find a 
way to get to a compromise because clearly long-term democratic 
stability for Togo is--is our goal, is the goal of our 
likeminded friends, and seems to be the goal of various members 
of the elite in the country.
    And so continuing to work with that process, encouraging 
the ECOWAS process, using the leverage that we have gained 
through our MCC threshold program, which has been very, very 
well received by the government and where have made it very 
clear, your progress toward democratic processes is going to be 
critical to our willingness to move beyond this point with the 
MCC because our aid at the moment is rather limited. The MCC 
program is twice what our annual aid is, of which it is only 
$17.5 million this year, the MCC program is larger. And so 
those kinds of leverage, it seems to me, with the likeminded, 
are the kinds of things we can use to try and find a 
resolution.
    Togo is one of those countries where there was not a term 
limit process in place, and one of the things that has come up 
has been a willingness to talk about term limits on all sides 
and also to look at second--second--what would you--runoff 
elections, which obviously is a process that could be an 
incentive to the opposition to join. So despite their numerous 
different opposition parties, if they can coalesce in a runoff, 
that might give them the ability to succeed in an election, 
even if four were to stand in 2020, but that is a decision the 
Togolese will have to make for themselves.
    But we would continue to participate with the support of 
the G5 I have mentioned in furthering the ECOWAS mediation, 
which, you know, is--is building off of the kinds of progress 
we have seen across the West Africa region. I mean, clearly, 
the wave of the future there seems towards democratic 
alternance and progress, and we would do everything--I would 
do, if confirmed, everything I could to further that process, 
as my predecessor has been doing.
    Senator Booker. Thank you, sir.
    And I said I would get back to you, sir. So, Mr. Henshaw, 
this is a question, and I warn you that I look askance if truth 
telling is not done during this questioning, and this answer of 
yours is going to stand in history, it is going to be part of 
the congressional record. Your family, your ancestors, will 
look back on this question. [Laughter.]
    Senator Booker. And so I very simply ask you, sir, this is 
a direct question to put you on the spot. You married a Jersey 
girl, yes or no? Did you marry up? [Laughter.]
    Mr. Henshaw. Absolutely. I married up.
    Senator Booker. Yes.
    Mr. Henshaw. Yes.
    Senator Booker. Your ancestors will note that for the 
record. Thank you very much, sir.
    Mr. Henshaw. Thank you for that question, Senator.
    Senator Flake. Thank you. The hearing record will stay open 
for another day. I doubt you will get any questions like that 
last one. [Laughter.]
    Senator Flake. But if you do, or do not, but please try to 
answer promptly so we can make it as part of the record.
    And with the thanks of the committee, to you and your 
families, this hearing stands adjourned.


    [Whereupon, at 3:52 p.m., the hearing was adjourned.]

                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
              Craig Lewis Cloud by Senator Robert Menendez

    Question 1. Botswana is designated Tier Two in the 2018 Trafficking 
in Persons Report. The report indicates that anti-trafficking efforts 
decreased, and recommends that Botswana among other things ``amend the 
anti-trafficking law to remove sentencing provisions that allow fines 
in lieu of imprisonment; disallow suspended sentences for convicted 
traffickers; [and] implement the newly adopted anti-trafficking 
national action plan:''What explains the decrease in anti-trafficking 
efforts on the part of the Government? If confirmed, what specific 
actions will you take to encourage the Government to change laws where 
needed and implement the anti-trafficking national action plan?

    Answer. Currently, the Government of Botswana does not fully meet 
the minimum standards for the elimination of trafficking in persons, 
but is making efforts to do so. Botswana remained a Tier Two country in 
2018 and has publicly reiterated its commitment to reaching Tier One 
status. The most recent Trafficking in Persons Report noted that 
Botswana's anti-trafficking efforts have decreased in some areas, such 
as identifying fewer trafficking victims, but progress was been made in 
other areas such as training law enforcement officials, and Botswana 
launched a national anti-trafficking action plan for the first time. If 
confirmed, I will encourage the Government of Botswana to increase its 
efforts to prosecute trafficking offenders and to ensure improved 
efforts to protect victims. By utilizing available resources, such as 
the International Law Enforcement Academy in Botswana, we can assist 
Botswana's work to train law enforcement and judicial officials on 
Botswana's Anti-Human Trafficking Act and sentencing guidelines, 
improving anti-trafficking efforts. If confirmed, I would emphasized 
the importance of strengthening existing legislation and implementing 
the anti-trafficking national action plan with our Government of 
Botswana counterparts.
    Question 2. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As the Deputy Chief of Mission in Swaziland (now the 
Kingdom of Eswatini), I worked with youth, political opposition groups, 
trade unions, and civil society organizations on the issues of human 
rights and democracy. The Embassy hosted regular meetings as part of 
our public diplomacy program highlighting the U.S. experience, 
including our challenges with race relations, school integration, the 
Freedom Riders, and effecting change through non-violent protest; we 
used the International Visitor Leadership Program to send promising 
young leaders to the United States to learn about democratic 
institutions; and we worked through Non-Governmental Organizations to 
strengthen capacity building in democratic institutions. Eswatini is an 
absolute monarchy and our programs emphasized how the United States 
dealt with human rights and democracy issues and introduced the role of 
civil society in pressuring government to enact democratic reforms. The 
Ambassador and I met with King Mswati III on several occasions to 
directly express the United States' view that democratic reforms would 
benefit Eswatini and the Swazi people. Democratic progress in Eswatini 
has been slow, but opposition voices continue to grow louder.
    In India, where I served as the Minister Counselor for Management 
Affairs, I regularly met with Ministry of External Affairs officials to 
discuss legalizing same-sex relations and advocate for equal treatment 
for the same-sex domestic partners in our community. The Indian 
Government recently overturned Section 377 of the Indian penal code 
which criminalized same-sex sexual activities. Our management team also 
supported a taxi company with all female drivers, sending the founder 
on an International Visitor Leadership Program and giving the female 
drivers safe driving instruction and orientations on the expectation of 
American passengers.

    Question 3. What issues are the most pressing challenges to 
democracy or democratic development in Botswana? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Botswana has a long and impressive democratic history since 
independence in 1966. I will enthusiastically work with the embassy 
team and the Government of Botswana to strengthen democratic 
institutions and the rule of law, if confirmed. Botswana has regularly 
held fair and credible elections, and I look forward to the opportunity 
to witness this first-hand during the next elections in 2019.
    Botswana does face challenges and, if confirmed, I would encourage 
improvements in areas such as the treatment of asylum seekers in 
government detention, and possible improvements in the judicial 
process, which have been highlighted in previous Human Rights Reports.

    Question 4. What steps will you take--if confirmed--to support 
democracy in Botswana? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Botswana is a country with a strong democratic tradition 
and good governance. It is a stable country with a proven record of 
free and fair elections. If confirmed, I will work with the Government 
of Botswana to further strengthen its democratic institutions. Botswana 
is a strong partner of the United States and a strong regional partner 
as well and, if confirmed, I will work to further extend this 
relationship. Some of the potential impediments are reluctance to 
accept outside, non-indigenous critiques and assistance, lack of U.S. 
funding and capacity to address areas of concern, and suspicions about 
U.S. motivations.

    Question 5. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I would encourage the Government of Botswana 
to increase responsiveness to civil society and respect for civil 
liberties and would seek ways to work with civil society and media 
groups in this area. While we currently utilize a significant amount of 
assistance resources in Botswana, the vast majority goes to combat the 
country's HIV/AIDS epidemic. While it is vital that we continue our 
response to Botswana's epidemic, I would, if confirmed, look for 
additional ways we can expand our bilateral relationship.

    Question 6. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Botswana? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. I consider working to advance human rights central to my 
work as Ambassador, if confirmed, and I would commit to meeting with 
organizations that can help further this goal. If confirmed, I would 
communicate these goals to my Government of Botswana counterparts and 
encourage the work of civil society organizations that contribute to 
maintaining and improving the human rights environment in Botswana.

    Question 7. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Botswana has been democratic since its independence in 
1966. However, one party has been in power since that time. As 
Botswana's democracy matures, it will be imperative to ensure all 
democratically oriented parties are afforded fair and equal access to 
the democratic process. If confirmed, I will work to encourage free and 
fair political competition and will advocate for access for all the 
people of Botswana.

    Question 8. Will you and your embassy team actively engage with 
Botswana on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Botswana?

    Answer. A free and open press is vital to a healthy democracy. The 
most recent Human Rights Report noted attempts to limit freedoms of the 
press and assembly in Botswana. This is a serious issue, and I will 
work with my team, if confirmed, to encourage press freedoms in 
Botswana. A free and professional press corps is good for Botswana, and 
can also help amplify the good work of our embassy team in Gaborone. If 
confirmed, I plan to meet regularly with the press in Botswana.

    Question 9. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will engage with civil society and 
government counterparts to encourage free and open access to 
information and will work to counter the spread of misinformation. I 
will encourage the embassy team to prioritize work in this area as 
well.

    Question 10. Will you and your embassy teams actively engage with 
Botswana on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I would encourage the Government of Botswana 
to respect the rights of all the people of Botswana. I believe that 
Botswana is at a moment of opportunity when it comes to taking measures 
to diversify its diamond-dependent economy. Amendments made to 
Botswana's Trades Dispute Act limited the numbers of workers in 
Botswana allowed to strike. If confirmed, I would encourage the 
Government of Botswana to follow fair labor practices that protect its 
workers and encourage growth and diversification.

    Question 11. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Botswana, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Botswana? What specifically will you commit to do to help LGBTI 
people in Botswana?

    Answer. If confirmed, I commit to using my position to uphold and 
defend the rights and dignity of all, including members of the LGBTI 
community. I intend to work through the PEPFAR program and with the 
Government of Botswana and civil society organizations to improve the 
lives of all members of society. I appreciate recent positive 
developments in Botswana, such as a High Court decision that ruled in 
favor of a transgender man who successfully fought to change the gender 
on his government-issued identity documents.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Craig Lewis Cloud by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As the Deputy Chief of Mission in Swaziland (now the 
Kingdom of Eswatini), I worked with youth, political opposition groups, 
trade unions, and civil society organizations on the issues of human 
rights and democracy. The Embassy hosted regular meetings as part of 
our public diplomacy program highlighting the U.S. experience, 
including our challenges with race relations, school integration, the 
Freedom Riders, and effecting change through non-violent protest; we 
used the International Visitor Leadership Program to send promising 
young leaders to the United States to learn about democratic 
institutions; and we worked through Non-Governmental Organizations to 
strengthen capacity building in democratic institutions. Eswatini is an 
absolute monarchy and our programs emphasized how the United States 
dealt with human rights and democracy issues and introduced the role of 
civil society in pressuring government to enact democratic reforms. The 
Ambassador and I met with King Mswati III on several occasions to 
directly express the United States' view that democratic reforms would 
benefit Eswatini and the Swazi people. Democratic progress in Eswatini 
has been slow, but opposition voices continue to grow louder.
    In India, where I served as the Minister Counselor for Management 
Affairs, I regularly met with Ministry of External Affairs officials to 
discuss legalizing same-sex relations and advocate for equal treatment 
for the same-sex domestic partners in our community. The Indian 
Government recently overturned Section 377 of the Indian penal code 
which criminalized same-sex sexual activities. Our management team also 
supported a taxi company with all female drivers, sending the founder 
on an International Visitor Leadership Program and giving the female 
drivers safe driving instruction and orientations on the expectation of 
American passengers.

    Question 2. What are the most pressing human rights issues in 
Botswana? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Botswana? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Botswana include 
excessive use of force by security personnel; lengthy judicial delays; 
government attempts to limit freedoms of the press and assembly; 
mistreatment of asylum seekers and refugees; gender-based violence and 
lack of effective government response; marginalization of the Basarwa 
(San) people; and government curtailments of the right to strike.
    Botswana has historically proven to be a trusted partner in the 
promotion and advancement of democracy and a model for the region. If 
confirmed, I plan to work to continue and strengthen this relationship, 
especially on the issues of advancing human rights and democracy by 
making sure these issues are part of our engagement with Botswana. 
While Botswana has a storied democratic history, recent questions 
regarding restrictions on press and labor freedoms in the country have 
emerged. If confirmed, I plan to engage with the Government of Botswana 
to support its ongoing efforts to address these challenges and also 
work with youth, civil society, and media organizations through 
programmatic outreach.
    By engaging with the Government of Botswana, civil society, and 
directly with the population, I hope to improve the lives of those 
affected by human rights violations. Through these actions, I hope to 
see a Botswana with stronger institutions to promote accountable, 
transparent, and democratic governance, protecting the rule of law and 
human rights for all.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Botswana in 
advancing human rights, civil society and democracy in general?

    Answer. Some of the potential obstacles are the Government of 
Botswana's reluctance to accept critiques from a foreign nation, and 
weak capacity of Botswana's own civil society organizations, which 
impedes their ability to press their government for change.
    Additionally, though Botswana has held regular elections which have 
widely been regarded as free and fair, there is still room for 
improvement in the country's democracy. The same political party (the 
BDP, or Botswana Democratic Party) has held power since independence in 
1966. In addition, the Government owns and operates the country's most 
popular newspaper and two radio stations, and state-owned media 
generally feature reporting favorable to the Government and the ruling 
party. If confirmed, I will emphasize that true democracy entails more 
than just elections, and requires that all voices and political views 
are free to be heard.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Botswana? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I would consider working to advance human rights central to 
my work as Ambassador, if confirmed, and I commit to meeting with 
organizations that can help further this goal.
    Additionally, if confirmed, I would ensure that U.S. security 
assistance in Botswana is provided consistent with the Leahy Law and 
that our security cooperation activities advance our mission on human 
rights. I would keep this mission in mind as we look for opportunities 
to enhance our already strong security partnership with Botswana.

    Question 5. Will you and your embassy team actively engage with 
Botswana to address cases of key political prisoners or persons 
otherwise unjustly targeted by Botswana?

    Answer. There were no reports of political prisoners or detainees 
cited in the State Department's most recent Country Report on Human 
Rights for Botswana. Nevertheless, if I am confirmed, the embassy team 
will encourage the Government of Botswana to maintain its good record 
on this front and continue to live up to its reputation as a peaceful, 
just, and democratic nation which respects the rule of law.

    Question 6. Will you engage with Botswana on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Botswana's legacy as a stable, democratic, and peaceful 
nation puts it in a strong position to stand up for values of human 
rights, civil rights, and good governance both domestically and 
regionally. If confirmed, I look forward to engaging with the 
Government of Botswana on these matters, and will make this a focus of 
our bilateral relationship.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Botswana?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence in Botswana; 
however, these funds are exempt from the conflict of interest laws. I 
am committed to ensuring that my official actions will not give rise to 
a conflict of interest, and I will remain vigilant with regard to my 
ethics obligations.
    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will verify the existence of a robust EEO 
program at post that includes continuous training and sensitization, 
meet individually with EEO Counselors to gain their perspectives, and 
ensure that personnel are aware of the Department's discrimination and 
harassment policies and how to report violations. I will review the 
mentoring and support programs currently in place, meet with the 
American and local staffs in the Mission to determine where inclusivity 
is perceived as lacking, and work with employee organizations to 
discuss their support. I will also meet with Mission supervisors and 
the management team to discuss what I have heard from the employees, 
where improvements are needed and, based on all of the information 
gathered, put a plan in place to correct any weaknesses or gaps.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will meet with supervisors, section heads, 
and agency heads to ensure that they are familiar with EEO rules, 
reinforce mandatory reporting requirements for supervisors and other 
responsible officials, solicit ideas on how to recruit a more diverse 
workforce, and affirm that all supervisors are expected to cultivate a 
work environment of respect, inclusion, and mutual support.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Botswana 
specifically?

    Answer. Political corruption undermines democratic governance and 
the rule of law. Botswana has been democratic since its independence in 
1966. It has a history of holding regular, credible, and fair 
elections. If confirmed, I pledge to work with our country team to 
support Botswana's democracy and respect for the rule of law. I look 
forward to seeing Botswana's next free and fair elections take place in 
2019, if confirmed.

    Question 13. What is your assessment of corruption trends in 
Botswana and efforts to address and reduce it by that government?

    Answer. Botswana has a strong democratic history and is a 
relatively prosperous country. If confirmed, I plan to work to 
strengthen Botswana's democratic institutions to ensure the country can 
continue to avoid the corruption that has plagued other countries in 
the region and hindered their prospects for development.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Botswana?

    Answer. Botswana has well-governed, strong, democratic 
institutions. If confirmed, I will enthusiastically work to strengthen 
good governance and anticorruption efforts. I plan to do this by 
utilizing the talents of our interagency country team and by taking 
advantage of our engagement with the Government of Botswana and civil 
society to emphasize these goals.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Craig Lewis Cloud by Senator Cory A. Booker

    Question 1. While there are large coal reserves in Botwsana, 
according to Power Africa, the country has significant solar potential, 
with 3,200 hours of sunshine per year. I understand Power Africa is 
assisting with the Government's ongoing procurement for 100 Megawatts 
of solar panels.

   What's the status of that investment and our engagement on helping 
        Botswana diversify its energy needs away from fossil fuels?

    Additionally, Power Africa lists poor implementation of policy 
frameworks to encourage private sector investment and the lack of 
experience with renewable energy, both on and off grid, as the biggest 
issues and bottlenecks.

   How do you think the United States can help Botswana address these 
        issues?

    Answer. Through Power Africa, the United States is helping Botswana 
strengthen its regulatory environment, attract private investment, and 
diversify its electricity supply. Power Africa is directly supporting 
the Botswana Energy Regulatory authority as it develops regulatory 
frameworks and the Botswana Power Corporation as it develops the 100 
megawatt solar project. Regionally, Power Africa's Southern Africa 
Energy Program (SAEP) helps increase electricity supply and access in 
Southern Africa. If am confirmed, the embassy team and I will continue 
these valuable and important projects that not only increase Botswana's 
electricity access and lessen its dependence on fossil fuels, but also 
create investment opportunities for American firms. Renewable energy 
presents an opportunity for American business to increase its presence 
in Botswana and showcase American technical expertise in this field. If 
confirmed, I look forward to connecting U.S. companies to opportunities 
in Botswana, and working with the Government of Botswana to diversify 
its economy and improve the environment for foreign direct investment.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Michael Pelletier by Senator Robert Menendez

    Question 1. According to the most recent State Department Country 
Report on Human Rights Practices for Madagascar, ``there were numerous 
reports that the Government or its agents committed arbitrary or 
unlawful killings of criminal suspects.'' The State Department report 
referred to reports from media and non-governmental organizations that 
indicated that ``security forces subjected prisoners and criminal 
suspects to physical and mental abuse, including torture.''

   Are security forces that engage in abuses held accountable? What 
        steps will you take, if confirmed, to support efforts to 
        improve human rights practices of security forces?

    Answer. Accountability for security force abuses, including 
unlawful killings, remains a problem in Madagascar. If confirmed, I 
would take all allegations of human rights abuses seriously, speak out 
against any unlawful killings, and press for accountability. I would 
also work to support and build institutions that promote human rights 
and the rule of law. If confirmed, I intend to work with organizations 
such as the Human Right Commission in Madagascar to promote improved 
oversight of security forces. In addition, if confirmed, I intend to 
focus on capacity building of the judiciary to help address human 
rights violations and abuses. If confirmed, I would also prioritize 
reducing corruption, which undermines the effectiveness of institutions 
charged with providing oversight.
    The Department of State follows Leahy vetting requirements for all 
security force units to which we provide U.S. assistance. This is true 
worldwide, and there would be no exception for Madagascar, and I will 
work to ensure that all assistance is provided consistent with the 
Leahy Law.

    Question 2. Elections are slated for November of this year: What 
are the prospects for credible elections in November? What programs and 
activities is the U.S. supporting related to democracy in Madagascar? 
Do we have programs aimed at combatting corruption? What specific 
actions will you take, if confirmed, to help improve democracy and 
governance in Madagascar?

    Answer. We have seen significant progress in the months since the 
pre-electoral crisis that characterized spring 2018, most notably 
through the establishment of a government of consensus and the 
September 7 departure of the incumbent president, in keeping with the 
constitutional court's decision. We are watching the pre-electoral 
environment closely, and we continue to stress the importance of 
freedom of expression throughout. The embassy will continue to work 
closely with the international community, in particular multilateral 
institutions like the AU and U.N., which have sent envoys to Madagascar 
to help facilitate solutions to other political crises. The current 
government and all political parties and candidates must facilitate 
genuinely free and fair elections in Madagascar, so that the country--
and foreign assistance and trade agreements--will not be put at risk 
once again due to extraconstitutional events, such as those following 
the coup of 2009. If confirmed, I will work closely with all member of 
government, NGOs and civil society to encourage cooperation in order to 
improve democracy and governance.

    Question 3. In 2008, Comoros launched a program whereby Comoran 
passports could be awarded to stateless residents of Kuwait and the 
United Arab Emirates (UAE) in return for development assistance from 
those countries. The program was halted in 2016, and an ensuing 
investigation found passports had been illegally sold, including 
through criminal syndicates:

   How many Comoran passports were issued under the program? Are there 
        concerns that passports may have been issued to criminals or 
        terrorists? Are the Governments of Kuwait and UAE helping 
        identify those who have obtained passports from Comoros? Is the 
        United States engaged in efforts to help identify those who may 
        have obtained Comoran passports? If confirmed, what steps will 
        you recommend the U.S. take related to helping identify who may 
        have obtained these passports?

    Answer. More than 47,000 travel documents were issued under this 
program. This is a key priority for the mission, given the national 
security implications of individuals from countries of concern 
potentially using travel documents to facilitate financial 
transactions, and possibly avoid sanctions, or for criminal or 
terrorist elements to obtain and use these travel documents. I 
understand that the Governments of Kuwait and UAE have not identified 
those who have obtained travel documents under the Comoran economic 
citizenship program. Nonetheless, the Department has determined that 
travel documents issued under the Comoran economic citizenship program 
are not acceptable for visa issuance. The consular sections in Abu 
Dhabi and in Dubai follow enhanced vetting procedures for all bearers 
of economic citizenship passports, to include Comoros passports 
obtained through this program. We continue working with all relevant 
law enforcement and other agencies to investigate the issue, and inform 
all relevant parties of the possible abuse of these travel documents.
    If confirmed, I will continue to work with the Comoros's leaders to 
ensure that the program does not restart, and together with my team, we 
will try to gain as much information as possible about the individuals 
who were given these travel documents, so we can communicate it to 
relevant law enforcement and other agencies.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over the course of my 30-year career in Africa, the Arab 
world, and India, I have worked to support those who share our values 
regarding human rights and democracy. Whether I was witnessing or 
monitoring elections in Nigeria and Sierra Leone, supporting nascent 
NGOs and civil society organizations in Africa and the Arab world, or 
engaging with India's vibrant civil society, these topics have been a 
constant focus throughout my career. For example, I worked with 
journalists and NGOs in Mali in the mid-90s to establish the Maison de 
la Presse, which continues to this day to support independent 
journalism. More recently, as DCM and Charge d'Affaires in India, I 
directed the embassy and consulates in India to highlight U.S. 
Government support for equal rights for LGBTI persons through lighting 
rainbow lights and/or displaying the rainbow flag on our buildings. I 
issued a public statement in support of LGBTI rights as the Charge 
d'Affaires in India in June 2016. I look forward to continuing to 
support human rights and democracy and the proponents of these values 
in Madagascar and the Comoros, if I am confirmed to serve there.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in Madagascar and Comoros? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. In Madagascar, the most pressing challenges to democracy 
and democratic development include pervasive poverty and the lack of 
infrastructure and public services, all exacerbated by corruption. 
Madagascar is the only country in the world whose GDP and consumption 
per capita have continued to decline since independence (in 1960) 
despite the absence of conflict. It is still recovering from a 
political crisis that lasted from 2009 to 2013 and saw the withdrawal 
of most foreign aid. In November, the country will have a presidential 
election, which, if successful, will be the first time there have been 
two successive peaceful transfers of power. Madagascar has one of the 
worst corruption perception ratings (ranking 155 out of 180 countries 
per Transparency International). There are few truly independent media 
outlets.
    In the Comoros, which has suffered from political instability, 
including numerous attempts to overthrow the Government, since 
independence in 1974, corruption is also a major challenge, but one of 
the main factors that undermines democratization is the tension between 
the central government, which seeks to consolidate power, and the 
individual islands, which value the autonomy they have enjoyed 
throughout much of the country's history. President Azali's successful 
passage of a referendum in July 2018 significantly altered that system 
and has been met with resistance by many political opponents.
    The African Union recently sent an envoy to the Comoros and may 
facilitate a dialogue to help resolve the current tensions. I 
understand the embassy is monitoring this issue very closely and will 
continue to do so in the coming months. If confirmed, I would use high-
level engagements to encourage the Government to find a political 
solution with the aim of ensuring continued stability in the Comoros.

    Question 6. What steps will you take--if confirmed--to support 
democracy in Madagascar and Comoros? What do you hope to accomplish 
through these actions? What are the potential impediments to addressing 
the specific obstacles you have identified?

    Answer. The most urgent need in Madagascar and the Comoros is to 
foster a sense of public service, accountability, and responsibility 
among all levels of government, and to push for the decentralization of 
some of the governance responsibilities. If confirmed, I intend to 
engage regularly with senior political leaders, in coordination with 
other like-minded representatives of the international community, on 
the importance of decentralization, accountability, and transparency as 
essential to the development of their countries. There is also a need 
to foster a sense of civic duty and increase awareness of political 
rights and responsibilities among the people. In both Madagascar and 
the Comoros, I believe this should include empowering host nation civil 
society organizations and NGOs, bringing in speakers on key topics, and 
supporting and encouraging participation in exchange programs such as 
the Young African Leaders Initiative and the many Fellowship programs 
that are available.

    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Additional exchange programs such as the Young African 
Leaders Initiative, the International Visitor Leadership Program, and 
various fellowships are key resources for us in the promotion of 
democracy, as they provide networks, training, and support to key 
groups and individuals who are supporting democracy and governance. For 
both Madagascar and the Comoros, sending qualified candidates to the 
International Law Enforcement Academy in Gaborone is another important 
tool. I understand USAID personnel at Embassy Antananarivo are 
currently implementing a program to support Madagascar's independent 
election commission in the run-up to national elections. USAID 
personnel at post are also designing a new project that will build the 
capacity of civil society organizations over the next few years. That 
project, together with the other support our embassy already provides 
to that sector, will help civil society become even more effective in 
the future.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Madagascar and Comoros? What steps will you take to pro-
actively address efforts to restrict or penalize NGOs and civil society 
via legal or regulatory measures?

    Answer. For over two decades, our embassy in Madagascar has 
provided meeting space and participated in a monthly meeting of 40 to 
50 civil society organizations and NGOs. This offers a valuable forum 
to engage that community on a variety of topics and, if confirmed, I 
intend to continue supporting this initiative. The release of the 
annual congressionally-mandated reports on human rights and related 
issues provides other important opportunities to host public and 
private events with civil society and government officials to maximize 
the impact of those reports and to collectively seek solutions to 
address the issues those reports highlight. In addition, USAID is 
developing activities to strengthen the capacity of NGOs and civil 
society organizations so that they are more capable of supporting 
communities by advocating for respect for human rights and for 
improvements in government services.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meet with political opposition 
figures and parties who support adherence to and participation in 
democratic processes. Our support to the United Nations basket fund for 
the 2018 presidential election includes the training of Madagascar's 
independent national electoral commission staff; production and 
distribution of a voting procedure manual; and adoption of a code of 
ethics by the Government of Madagascar, local organizations, political 
parties, and the media. This is an important initiative, and, if 
confirmed, I will continue supporting programs such as these that 
ensure that all members of society are represented.
    If confirmed, I will advocate for access and inclusivity for women, 
minorities and youth within political parties. It is important to 
demonstrate through words and deeds that the United States values 
democratic principles and processes rather than individual candidates.

    Question 10. Will you and your embassy team actively engage with 
Madagascar and Comoros on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Madagascar and Comoros?

    Answer. Madagascar and the Comoros enjoy relatively good press 
freedom, but there is always room for improvement. In Madagascar, the 
new communications code passed in late 2016 could create opportunities 
for the Government to hinder press freedom through regulatory measures. 
Thus far the law has been loosely enforced, and in a few cases used to 
restrict press freedom through alleged defamation on social media, and 
to jail and levy sentences to silence environmental defenders. The 
embassy has made public statements supporting media freedom and has 
continued to engage with responsible officials when necessary and 
appropriate. If confirmed, I commit to meeting with the widest possible 
range of media outlets, especially those who are independent or making 
efforts to be so, to promote awareness of media ethics and the 
promotion of real media independence.
    In the Comoros, despite relative media independence in the past, 
there is an increasing trend of government meddling in press freedom. 
This has included short-term jailing of journalists due to their work, 
public berating of journalists because they report unfavorably on the 
Government and the suspension or withholding of media licenses. If 
confirmed, I commit to engaging responsible Comorian Government 
officials on these trends in accordance with the U.S. commitment to 
press freedom worldwide.

    Question 11. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, the embassy team and I will actively engage 
with civil society and government counterparts to promote accurate 
information sharing.

    Question 12. Will you and your embassy teams actively engage with 
Madagascar and Comoros on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Madagascar and the Comoros have a handful of independent 
trade unions, to include some in the media and the public service 
sectors. If confirmed, I certainly would advocate for the right of 
labor groups to organize, while carefully considering how to address 
specific cases of labor abuse in ways that avoid jeopardizing the 
employment of those affected.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Madagascar and 
Comoros, no matter their sexual orientation or gender identity? What 
challenges do the lesbian, gay, bisexual, transgender and intersex 
(LGBTI) people face in Madagascar and Comoros? What specifically will 
you commit to do to help LGBTI people in Madagascar and Comoros?

    Answer. In Madagascar, sexual relations between individuals of the 
same sex is a punishable offense under age 21. While there are no laws 
prohibiting same-sex sexual contact over age 21, there is no 
antidiscrimination law that applies to LGBTI persons. No laws prevent 
transgender persons from identifying with their chosen gender. LGBTI 
persons are subject to social stigmatization and there have been 
reports of denial of services, including health services, for LGBTI 
persons. The embassy in Madagascar has routinely raised the issue in 
public and fostered dialogue, especially during Pride Month, and, if 
confirmed, I intend to continue pressing the dialogue and demonstrating 
U.S. support for equality and rights for all people, no matter their 
sexual orientation or gender identity. In Madagascar, our emphasis will 
be on access to basic services, employment, and protection from 
violence.
    In the Comoros, same-sex sexual activity is illegal and subject to 
strict penalties. Arrests or prosecutions are very rare, as LGBTI 
persons are extremely unlikely to reveal their orientation or identity. 
Advocating for the rights of LGBTI persons in the Comoros is an 
extremely delicate issue due to strict legal prohibitions and the 
stigma associated with the issue, which Comorians frequently associate 
with religious beliefs. In the Comoros, advocating for LGBTI rights is 
best accomplished within the context of broader human rights, and 
through means such as the annual human rights report. If confirmed, I 
commit to advocating for LGBTI rights within this delicate context.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Michael Pelletier by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of my 30-year career in Africa, the Arab 
world, and India, I have worked to support those who share our values 
regarding human rights and democracy. Whether I was witnessing or 
monitoring elections in Nigeria and Sierra Leone, supporting nascent 
NGOs and civil society organizations in Africa and the Arab world, or 
engaging with India's vibrant civil society, these topics have been a 
constant focus throughout my career. For example, I worked with 
journalists and NGOs in Mali in the mid-90s to establish the Maison de 
la Presse, which continues to this day to support independent 
journalism. More recently, as DCM and Charge d'Affaires in India, I 
directed the embassy and consulates in India to highlight U.S. 
Government support for equal rights for LGBTI persons through lighting 
rainbow lights and/or displaying the rainbow flag on our buildings. I 
issued a public statement in support of LGBTI rights as the Charge 
d'Affaires in India in June 2016. I look forward to continuing to 
support human rights and democracy and the proponents of these values 
in Madagascar and the Comoros, if I am confirmed to serve there.

    Question 2. What are the most pressing human rights issues in 
Madagascar? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Madagascar? What do 
you hope to accomplish through these actions?

    Answer. In Madagascar, unlawful killings and other security force 
abuses, life-threatening prison and detention conditions, and child 
sexual exploitation are the most pressing issues. Some of these issues 
have emerged as part of Madagascar's challenge in addressing governance 
concerns, including during the 2009 political crisis and its aftermath. 
It is also important to note that Madagascar is one of the poorest 
countries in the world. According to the World Bank, 76.2 percent of 
the population lives on less than $1.90 per day, earning Madagascar the 
rank of 10th poorest country in the world in 2017. More than 80 percent 
of the population depends on subsistence agriculture to meet basic 
needs. It is the only non-conflict country in the world that is poorer 
today than it was at independence in 1960.
    If confirmed, my priority would be to support efforts to reduce 
corruption and impunity, which underpins and exacerbates many human 
rights problems. If confirmed, I would expect that we would use all the 
tools we have to encourage government support of anti-corruption 
entities and programs. If confirmed, I would support the work of 
organizations such as Madagascar's Human Rights Commission, with the 
hopes that their work, in conjunction with training and exchanges for 
key members of the judiciary and others, will result in stronger and 
more effective efforts to combat corruption.
    If confirmed, my priority would be to support efforts to reduce 
corruption and impunity, which underpins and exacerbates many human 
rights problems. If confirmed, I would expect that we would use all the 
tools we have to encourage government support of anti-corruption 
entities and programs. If confirmed, I would support the work of 
organizations such as Madagascar's Human Rights Commission, with the 
hopes that their work, in conjunction with training and exchanges for 
key members of the judiciary and others, will result in stronger and 
more effective efforts to combat corruption.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Madagascar in 
advancing human rights, civil society and democracy in general?

    Answer. Madagascar has an Independent Human Rights Commission 
composed of key civil society representatives. The Commission is very 
active, but struggles to get the support it requires from the 
Government. If confirmed, I plan to reinforce with the Malagasy 
Government the importance of supporting such independent commissions.
    In Madagascar, widespread poverty coupled with pervasive corruption 
is the most significant obstacle to addressing human rights issues. The 
concentration of wealth among the elite means that between 80 and 90 
percent of the people live on less than $2 per day. The struggle to 
make ends meet often drives people to banditry, child sexual 
exploitation, and other crimes; and security officials and the 
judiciary often engage in corruption because they are similarly 
struggling to survive financially.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Madagascar? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to meeting with human rights, 
civil society, and other non-governmental organizations in the U.S., 
and with local human rights NGOs in Madagascar. In Madagascar, non-
governmental organizations and civil society groups are on the 
frontlines in terms of advancing and advocating for human rights, and, 
if I am confirmed, the Embassy team and I must continue to meet with 
them regularly. Our embassy in Antananarivo has been hosting monthly 
roundtables for local NGOs and civil society groups for more than 20 
years. If confirmed, I plan to continue this tradition. The 
Congressionally-mandated human rights, trafficking in persons, and 
religious freedom reports that we produce each year also offer strong 
opportunities to engage on these issues with local NGOs.
    Accountability for security force abuses, including unlawful 
killings, remains a concern in Madagascar. If confirmed, I would take 
all allegations of human rights violations and abuses seriously, speak 
out against any unlawful killings, and press for accountability. I 
would also work to support and build institutions that promote human 
rights and the rule of law. If confirmed, I intend to work with 
organizations such as the Human Right Commission in Madagascar to 
promote improved oversight of security forces. In addition, if 
confirmed, I intend to focus on capacity building of the judiciary to 
help address human rights violations and abuses. If confirmed, I would 
also prioritize reducing corruption, which undermines the effectiveness 
of institutions charged with providing oversight.
    The Department of State follows Leahy vetting requirements for all 
security force units who receive assistance. This is true across the 
board worldwide, and there would be no exception for Madagascar.

    Question 5. Will you and your embassy team actively engage with 
Madagascar to address cases of key political prisoners or persons 
otherwise unjustly targeted by Madagascar?

    Answer. There are currently no known political prisoners in 
Madagascar. In Madagascar, I would continue to urge the Government to 
stop all cases of unjust detention and imprisonment, including those of 
environmental defenders who highlight trafficking of rosewood and 
protected animal species. Up to 70 percent of the prison population is 
held in pretrial detention, and we must work with our international 
partners to continue engaging the Government's judiciary to clear this 
backlog and reduce the number of prisoners being held in crowded and 
life-threatening prison conditions.

    Question 6. Will you engage with Madagascar on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Bilateral engagement at all levels of government and 
support for local non-governmental efforts are important tools to 
address human rights, civil rights, and governance. If confirmed, I 
will regularly engage with the highest levels of government and with 
civil society on these issues.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Madagascar?

    Answer. Neither I nor any member of my immediate family has any 
financial interests in Madagascar.

    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I have promoted and supported diversity in the Department 
of State throughout my career, and believe that is a key responsibility 
and opportunity for senior leaders. For example, I was honored to serve 
as the Senior Leadership Liaison to the South Asian American Employee 
Association at the Department over the last two years. If confirmed, I 
look forward to continuing to support and mentor all of my colleagues, 
helping us to build a strong Department, which truly represents 
America's brilliant diversity.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. A key responsibility of a leader is to set the right 
example and tone for the team, and if confirmed, I look forward to 
reinforcing the importance of a diverse and inclusive environment by 
making it clear this is a priority and by setting a positive example in 
all my actions and those of the Embassy.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Madagascar 
specifically?

    Answer. Political corruption impacts democratic governance and the 
rule of law, redirecting significant resources away from key areas such 
as education, infrastructure, and health services. Security is another 
core issue that is affected by corruption. We know from experience 
around the world that when security forces are not paid a living wage, 
they often try to make money by seeking bribes. This creates a culture 
of distrust towards the security services, and contributes to an 
increase in mob justice: people take matters into their own hands when 
they do not believe the security forces will help them. Locally 
developed codes, procedures, and penalties are often in conflict with 
national laws. This can create ambiguity and uneven application of 
national laws, and can result in impunity for perpetrators.

    Question 13. What is your assessment of corruption trends in 
Madagascar and efforts to address and reduce it by that government?

    Answer. Madagascar has been making slow but steady progress in 
addressing corruption. Since the 2013 election, which put an end to the 
2009 political crisis, the Government has taken a number of steps. They 
have established and funded an independent anti-corruption commission 
(BIANCO) which has credibly taken on a number of corruption cases; 
established anti-corruption courts; and created a special tribunal for 
the prosecution of rosewood traffickers, an issue that is believed to 
be linked with high-level corruption. In 2018, nearly five years into 
his term, President Rajaonarimampianina named the members of the High 
Court of Justice (as required by the constitution) and the High Council 
for the Defense of Democracy and the Rule of Law. However, neither 
institution has been sufficiently funded or given working space. In 
addition, there have been very few, if any, prosecutions of high-level 
officials for corruption, and the Government's efforts to address 
rosewood trafficking have been primarily focused on regaining control 
of confiscated stocks from other countries.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Madagascar?

    Answer. One of the top-level goals of Embassy Antananarivo's 
country strategy is to help enable Madagascar to provide reliable and 
effective governance that supports our mutual interests in the region. 
A key component of this governance is the delivery of public services, 
including security, and countering corruption. If confirmed, I plan to 
encourage the Government of Madagascar to support its own institutions 
whose mandates include combatting corruption. This can be reinforced by 
high-level visitors from the U.S. Government, including congressional 
delegations. If confirmed, I hope to plan regular meetings with 
Madagascar's anti-corruption agency, BIANCO, with the goal of 
completing one or more high-level corruption investigations to break 
the cycle of impunity. If confirmed, I plan to encourage the various 
exchange and capacity building programs within the embassy to continue 
focusing on leaders and organizations that can help the Government 
focus on anti-corruption efforts and the provision of services. 
Finally, if confirmed, I intend to hold government leaders accountable 
for acts of corruption or efforts to cover up corruption--at first, 
discreetly, but if necessary, publicly.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Michael Pelletier by Senator Cory A. Booker

    Question 1. Since 2014, Madagascar has tried to recover from a 
series of political crises, though recent moves in the past several 
months have only increased civil strife and raised questions on how 
free and fair the upcoming elections will be. The President has 
recently stepped down to run in the November 7th elections, which 
appears by all indications will be a hard-fought campaign between three 
political heavyweights. There are concerns, given Madagascar's recent 
history, that electoral disputes could trigger renewed instability.

   What are the prospects for a credible electoral process?
   What actions would you like to see the current government take to 
        ensure that the public accepts the results of the November 2018 
        election?

    Answer. The pre-electoral crisis that occurred in the spring of 
this year was a reaction to the Government's proposed electoral code 
changes, which the opposition thought were designed to exclude certain 
opposition candidates. We have seen significant progress in recent 
months, most notably the establishment of a government of consensus and 
the stepping down on September 7 of the incumbent president, in keeping 
with the constitutional court's decision. We are watching the pre-
electoral environment closely, and we continue to stress the importance 
of freedom of speech at all times but particularly in this important 
pre-election time.
    Madagascar has a history of contested elections, and the country 
must come together to avoid a difficult election cycle this time. We 
will continue to work closely with the international community, in 
particular multilateral institutions like the AU and U.N., who have 
sent envoys to Madagascar to help facilitate solutions to other 
political crises in Madagascar. The current government and all 
political parties and candidates must facilitate free, fair, credible, 
and inclusive elections in Madagascar, so that the country--and foreign 
assistance and trade agreements--will not be put at risk once again due 
to extraconstitutional events, such as those following the coup of 
2009.

    Question 2. Comoros currently ranks 148 out of 180 countries in the 
Corruption Perceptions Index and the State Department reports ``endemic 
judicial and official corruption'' as a key human rights issue. And 
clearly with the passport scandal, corruption and poor oversight can 
lead to real security challenges as has been witnessed with Iranian 
nationals allegedly buying passports to potentially circumvent U.S. 
sanctions.

   What do you see as the most effective ways for the U.S. to engage 
        to combat corruption in Comoros?
   Is there U.S. foreign assistance you think would be useful to 
        engage with Comoros other than IMET?

    Answer. We must continue working with organizations such as the 
Human Rights Commission in Comoros, with the hopes that their work, in 
conjunction with training and exchanges for key members of the 
judiciary, will result in a stronger effort to combat corruption. 
Capacity building in the judiciary would help directly address the 
issues surrounding corruption in Comoros. We have made progress with 
the Comorian Government in ensuring that Economic Citizenship Passports 
(ECPs) are no longer available. We must continue working closely with 
our counterparts in the Comoros to address the corruption that allowed 
such a program to exist. A society with a functioning rule of law 
stands the best chance of defeating the rise of corruption. Comoros has 
made progress toward improving its rule of law, specifically by 
targeting new economic reforms designed to attract foreign direct 
investment; solve insolvency; increase enforcement of existing laws; 
further integrate into the Organization for the Harmonization of 
Corporate Law in Africa (OHADA); and update the national development 
strategy.
    We remain committed to seeking ways to engage with vulnerable 
populations in the Comoros. We continue to pursue programming to 
counter violent extremism, and opportunities to engage with the people 
and government of Comoros. If confirmed, I look forward to exploring 
opportunities for additional assistance.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Robert K. Scott by Senator Robert Menendez

    Question 1. Malawi is scheduled to hold elections in 2019. How much 
funding is the United States providing to support democracy and 
governance in Malawi? Is there specific support for elections 
activities? If confirmed, what actions will you take to help support 
efforts to ensure that elections are credible and the outcome reflects 
the will of the people?

    Answer. The United States has contributed funds to two programs 
that are working to support the 2019 elections in Malawi. These 
programs will expand long-term political process monitoring; enhance 
detection, reporting, and mitigation of conflict; and assist media with 
professional and balanced reporting to inform citizens. Malawi has held 
regular, peaceful elections since democratization in 1994, and we will 
work to see this trend continue. If confirmed, I will lead our Mission 
in supporting issue-based civic and voter education to support peaceful 
elections. The 2019 elections are expected to be highly competitive, 
and we must take advantage of the opportunity to deepen our engagement 
with the people of Malawi. If confirmed, I will work with the 
Government of Malawi, civil society, and citizen groups to help ensure 
the elections are free and fair.
Trafficking in Persons
    Question 2. Malawi is listed as a Tier Two country in the 2018 
Trafficking in Persons Report, what programs or activities is the 
United States undertaking to support training for judges and 
prosecutors and police to identify, investigate, and prosecute 
trafficking crimes? Do any U.S. funded programs support efforts to help 
working in the labor sector to recognize trafficking victims? If 
confirmed, what specific actions will you take to help Malawi improve 
its efforts to combat trafficking?

    Answer. The Department of State's Office to Monitor and Combat 
Trafficking in Persons (J/TIP) currently has one Southern African 
Development Community (SADC) regional program with the United Nations 
Office on Drugs and Crime (UNODC), in which Malawi is included. 
Additionally, there are three regional programs with the American Bar 
Association and UNODC that could benefit Malawi indirectly. There are 
no current projects that provide training for judges and prosecutors, 
but several Malawian police officers recently took part in an INTERPOL/
SARPCCO regional training in Botswana that focused on trafficking in 
persons investigation techniques. If confirmed, I would fully support 
efforts to combat trafficking in persons, including in the labor 
sector. I would encourage Malawian Government officials to develop and 
participate in future training programs.

    Question 3. Malawi ranks 122 out of 180 countries on Transparency 
International's 2017 Corruption Perception Index, and in recent years a 
number of scandals have implicated government officials. In April of 
this year, thousands of people around the country participated in 
widespread protests against corruption and bad governance after reports 
surfaced that the Government had planned to distribute $5.5 million in 
development funds without parliamentary approval:

   What programs and activities are we supporting to improve 
        transparency and good governance in Malawi? What steps will you 
        take, if confirmed, to support those engaged in the fight 
        against corruption?

    Answer. The United States has provided grant assistance from the 
Fiscal Transparency Innovation Fund to support two projects, totaling 
almost two million dollars, to help Malawi improve budget transparency, 
performance, and accountability. These projects helped strengthen 
budget planning, execution, and monitoring and provided members of 
Malawi's parliament with analytical tools for better understanding the 
nation's budget.
    If confirmed, I will support continued efforts to improve 
transparency in Malawi, such as these U.S. Government-sponsored 
projects and the implementation of recently passed anti-corruption 
legislation. If confirmed, I would encourage the Government of Malawi 
to fully implement these laws and, when possible, would offer U.S. 
technical assistance.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My engagement on human rights and democracy issues began 
with my first tour in Accra, Ghana in 1995-1997. I was responsible for 
our human rights portfolio and became very involved in assisting 
Liberian refugees who were seeking shelter in Ghana from the civil war 
in their country. I worked with USAID colleagues to generate emergency 
funds to support the Ghanaian Government's hosting of a large number of 
Liberian refugees, visiting the camps and reporting on conditions and 
needs back to Washington. I also spent nearly a week on the road 
following a ship loaded with almost 1,000 Liberian refugees, the Bulk 
Challenger, up and down the coast until these individuals finally 
disembarked at a regional Ghanaian port. I purchased supplies in local 
markets and assisted in setting up an emergency housing center in a 
local school, as local authorities processed the refugees. My efforts 
were part of an overall U.S. engagement that ultimately helped bring 
peace to Liberia through supporting regional peacekeeper deployments 
and safeguarded the lives of refugees throughout the region. While 
serving in Kyiv, Ukraine (2006-2008) I worked with Crimean Tatar civil 
society organizations to support their efforts to develop a political 
voice as they returned to homes from which Stalin had removed them 
during World War II. As Deputy Chief of Mission in Zimbabwe (2010-
2013), I helped lead our strong engagement on preserving political 
space for civil society, media, and political parties faced with an 
extremely difficult operating environment under the rule of then-
President Mugabe. Most recently, as Acting Deputy Assistant Secretary 
for African Affairs, I had oversight of our human rights portfolio, 
working closely with colleagues in the field and our Democracy, Human 
Rights, and Labor Bureau and Trafficking in Persons team to ensure that 
human rights were among our core considerations in our bilateral and 
multilateral engagements in Africa. For example, I worked with our 
Africa Bureau team in developing lists of individuals ultimately 
sanctioned under the Global Magnitsky Act for their human rights 
abuses.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in Malawi? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Malawi has held regular, peaceful elections since 
democratization in 1994. Malawi's 2014 elections were successful and 
credible in the eyes of the United States, regional bodies, and the 
international community. The 2014 elections included Malawi's first 
local elections since 2000, an important step toward fulfilling the 
country's intentions to decentralize its government structures. 
Building on these democratic gains will be important for Malawi as it 
approaches its 2019 elections and, if confirmed, I will support the 
Government of Malawi's needed reforms to tackle corruption, a main 
challenge to development, and build capacity to ensure it can be 
accountable to citizens and safeguard development gains.

    Question 6. What steps will you take--if confirmed--to support 
democracy in Malawi? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Building on Malawi's democratic tradition, if I am 
confirmed, the embassy team and I will support reforms that enable 
democracy to mature in Malawi, including those that build government 
and civil society capacity to enable the Government of Malawi to be 
accountable to its people. As Malawi gears up for its 2019 national 
elections, the United States and other development partners should work 
with the Government of Malawi to support full implementation of 
electoral, civil service, and public sector financial reforms. If 
confirmed, I will work with other donors in supporting the Malawi 
Electoral Commission to conduct the 2019 election, while also 
supporting independent civil society and media election observation.

    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. To reinforce public accountability, if confirmed, I will 
work to strengthen the Government of Malawi's public institutions and 
its independent media. One USAID project has already assisted with the 
successful devolution of the payroll function for over 100,000 front-
line civil servants, the identification of potential ``ghost workers'' 
at the district level, and the elimination of a three-year backlog in 
the financial reporting of eight targeted districts to increase 
accountability and transparency. If confirmed, I would prioritize these 
types of programs that support democracy and governance.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Malawi? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meeting with civil society 
organizations, human rights activists, and other non-governmental 
organizations in the United States and Malawi, and will address any 
efforts to restrict or penalize their work. Malawi faces many 
development challenges, and we engage many partners to achieve our 
development goals. I am happy to say that I understand our Mission in 
Malawi is actively engaged with the Government of Malawi and civil 
society partners, and I will, if confirmed, continue these efforts. For 
example, in collaboration with other development partners, the United 
States engages with our Government of Malawi counterparts to thwart 
proposed regulatory barriers on civil society space through restrictive 
registration fees and requirements. Through the Supporting the Efforts 
of Partners (STEPS) program, USAID has supported 30 Malawian civil 
society organizations to build core organizational capacity and 
advocacy skills. This program equips these organizations to advocate 
for freedoms of association and expression. I look forward to 
continuing this work, if confirmed.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with democratically oriented 
opposition figures and parties as appropriate and will encourage 
genuine political competition as Malawi approaches the 2019 elections. 
The country's four peaceful transfers of power provide a strong 
precedent for rotation of power between different individuals and 
political parties. If confirmed I will continue the embassy team's work 
to ensure peaceful elections in Malawi, including advocating for the 
access of women, minorities, and youth to the political process.

    Question 10. Will you and your embassy team actively engage with 
Malawi on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Malawi?

    Answer. Malawi has generally enjoyed a fair degree of press 
freedom, and journalists have been able to write on any issue, 
including government corruption, without significant reprimand from the 
Government of Malawi. While usually a positive model in the region for 
press freedom, Malawi had three cases in 2018 of politically motivated 
physical attacks against journalists. If confirmed, I will actively 
engage with the Government of Malawi on freedom of the press and will 
meet regularly with the independent local press. I look forward, if 
confirmed, to continuing great programs in support of press freedoms 
such as sending Malawian journalists, editors, and journalism 
professors to participate in the International Visitor Leadership 
Program to enhance their skills and knowledge of investigative 
journalism and media ethics.

    Question 11. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I would look forward to engaging with civil 
society and government counterparts on these issues and continuing 
positive programs already in place to provide media training. The U.S. 
Mission to Malawi continues to partner with the Malawi chapter of the 
Media Institute of Southern Africa to provide training to community 
radio stations, government spokespersons, and investigative 
journalists. With support from the Voice of America, the U.S. Mission 
has provided in-country training to community radio announcers, the 
primary source of information for most Malawians.

    Question 12. Will you and your embassy teams actively engage with 
Malawi on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If I am confirmed, the embassy team and I will actively 
engage with civil society and government partners to advance the goals 
of the U.S. Mission in Malawi, including promoting the rights of labor 
groups. I would urge the Government of Malawi to adopt safe labor 
practices that protect the workforce and encourage growth, and would 
encourage a peaceful and productive relationship with labor groups.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Malawi, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Malawi? What specifically will you commit to do to help LGBTI 
people in Malawi?

    Answer. Malawi generally respects human rights. However, in 
Malawian society there is currently little community support for equal 
rights of LGBTI people. At the same time, the Government of Malawi has 
maintained a moratorium on prosecuting persons for engaging in same-sex 
sexual activity. The rights of LGBTI people in Malawi is a serious 
issue that I, if confirmed, will raise as an area where advancements 
need to be made. If confirmed, I would engage with human rights 
activists, support and inform their efforts, and monitor progress.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Robert K. Scott by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My engagement on human rights and democracy issues began 
with my first tour in Accra, Ghana in 1995-1997. I was responsible for 
our human rights portfolio and became very involved in assisting 
Liberian refugees who were seeking shelter in Ghana from the civil war 
in their country. I worked with USAID colleagues to generate emergency 
funds to support the Ghanaian Government's hosting of a large number of 
Liberian refugees, visiting the camps and reporting on conditions and 
needs back to Washington. I also spent nearly a week on the road 
following a ship loaded with almost 1,000 Liberian refugees, the Bulk 
Challenger, up and down the coast until these individuals finally 
disembarked at a regional Ghanaian port. I purchased supplies in local 
markets and assisted in setting up an emergency housing center in a 
local school, as local authorities processed the refugees. My efforts 
were part of an overall U.S. engagement that ultimately helped bring 
peace to Liberia through supporting regional peacekeeper deployments 
and safeguarded the lives of refugees throughout the region. While 
serving in Kyiv, Ukraine (2006-2008) I worked with Crimean Tatar civil 
society organizations to support their efforts to develop a political 
voice as they returned to homes from which Stalin had removed them 
during World War II. As Deputy Chief of Mission in Zimbabwe (2010-
2013), I helped lead our strong engagement on preserving political 
space for civil society, media, and political parties faced with an 
extremely difficult operating environment under the rule of then-
President Mugabe. Most recently, as Acting Deputy Assistant Secretary 
for African Affairs, I had oversight of our human rights portfolio, 
working closely with colleagues in the field and our Democracy, Human 
Rights, and Labor Bureau and Trafficking in Persons team to ensure that 
human rights were among our core considerations in our bilateral and 
multilateral engagements in Africa. For example, I worked with our 
Africa Bureau team in developing lists of individuals ultimately 
sanctioned under the Global Magnitsky Act for their human rights 
abuses.

    Question 2. What are the most pressing human rights issues in 
Malawi? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Malawi? What do you 
hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Malawi include: 
excessive use of force by security officers; harsh and sometimes life-
threatening prison conditions; violence against women and lack of an 
effective government response; the criminalization of consensual same-
sex sexual relationships; and the exploitation of children.
    If confirmed, I will use my position to encourage the Government of 
Malawi to tackle these issues and improve the human rights environment 
in the country, including through collaboration with civil society. I 
will work with the embassy team to continue the good efforts we are 
currently undertaking to advance these issues.
    Additionally, if confirmed, I will advocate for human rights 
protections for marginalized populations, including LGBTI people, women 
and girls, and people with albinism and ensure effective and efficient 
use of U.S. Government resources to address these issues. I hope to 
continue to emphasize human rights issues in current projects and to 
look for additional ways we can contribute to eliminating abuses and 
contribute to a more just and accountable Malawi.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Malawi in advancing 
human rights, civil society and democracy in general?

    Answer. Impunity remains a problem in Malawi, and sometimes 
investigations are delayed, abandoned, or remained inconclusive. I 
commend the steps the Government of Malawi has taken to address human 
rights issues, such as prosecuting those who commit human rights 
abuses. However, impunity, the level of poverty, and the Malawian 
Government's serious lack of resources remain large obstacles.
    Corruption and impunity for abuses remain problems. While the 
Government of Malawi generally respects civil liberties, it does not 
always respect freedoms of peaceful assembly and association. The lack 
of available resources in Malawi creates serious challenges in 
advancing human rights, civil society, and democracy in general. These 
are serious and vital issues that must be dealt with, and I will, if 
confirmed, prioritize improving the human rights environment by 
engaging with the Government, civil society, and like-minded partners.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Malawi? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Advancing human rights would be integral to my work as 
Ambassador, if confirmed, and I would commit to meeting with 
organizations that can help further this goal.
    Further, if confirmed, I would ensure that U.S. security assistance 
is provided consistent with the Leahy Law and that our security 
cooperation activities advance our mission on human rights.

    Question 5. Will you and your embassy team actively engage with 
Malawi to address cases of key political prisoners or persons otherwise 
unjustly targeted by Malawi?

    Answer. Yes, if I am confirmed, the embassy team and I will 
actively engage with the Government of Malawi to address these issues, 
should they arise. Tolerance and inclusion of any opposition parties, 
for example, will be vitally important as Malawi approaches its next 
democratic election, and I look forward to the opportunity to help 
Malawi keep its electoral process free and fair.

    Question 6. Will you engage with Malawi on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage with the Government of Malawi 
on matters of human rights, including civil rights, and governance. As 
Malawi takes on many serious challenges, such as improving food 
security, improving the energy sector, and diversifying and expanding 
its economy, it must also be attentive to human rights and good 
governance. This will be a focus of our bilateral relationship.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Malawi?

    Answer. My investment portfolio includes companies that have a 
presence in Malawi, but I have worked closely with the State Department 
Ethics Office and the Office of Government Ethics and, if confirmed, 
will divest my interests in those companies the State Department Ethics 
Office deems necessary to avoid a conflict of interest. My investment 
portfolio also includes diversified mutual funds that may hold 
interests in companies with a presence in Malawi; however, such funds 
are exempt from the conflict of interest laws. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest, and I will remain vigilant with regard to my ethics 
obligations.

    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I strongly believe that teams perform best when they 
incorporate different viewpoints and value the experience and insights 
that members bring from varied backgrounds. If confirmed, I will ensure 
that Mission Malawi is known as a post that allows all members to 
contribute substantively, values a diversity of opinions and 
background, and provides opportunities for professional growth and 
advancement.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would lead by example and ensure that each 
member of my team was involved in and contributing to our common goal 
of advancing the interests of the United States in Malawi. I would 
emphasize to supervisors that our shared success is based on their 
ability to help all members of their teams thrive, through open and 
inclusive management and mentoring.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Malawi 
specifically?

    Answer. Political corruption undermines democracy and governance. 
Political corruption exists in Malawi and has had a negative impact on 
governance and rule of law. The U.S. Mission in Malawi works very 
closely with the Government of Malawi, civil society, and the Malawian 
people to address this serious issue, which threatens to undercut the 
gains and positive developments in the country. If confirmed, I will 
keep our focus on combatting corruption and will encourage the 
Government of Malawi to continue in its efforts to enact reforms.

    Question 13. What is your assessment of corruption trends in Malawi 
and efforts to address and reduce it by that government?

    Answer. President Mutharika has stated that his administration will 
have zero tolerance for corruption, and the Government of Malawi has 
passed several pieces of legislation aimed at combatting corruption. 
President Mutharika set up a public sector reform commission but his 
administration has yet to fully implement its recommendations. If 
confirmed, I would encourage the Government of Malawi to act upon the 
new legislation and would work to ensure that the promises of reform 
are met with actions.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Malawi?

    Answer. If confirmed, I will continue our work to combat corruption 
in Malawi. The United States has provided grant assistance from the 
Fiscal Transparency Innovation Fund to support two projects, totaling 
almost two million dollars, to help Malawi improve budget transparency, 
performance, and accountability. These projects helped strengthen 
budget planning, execution, and monitoring and provided members of 
Malawi's parliament with analytical tools for better understanding the 
nation's budget.
    This is part of an ongoing U.S. effort to improve fiscal 
transparency in countries identified as not meeting minimal standards 
of transparency. If confirmed, I would support continuing 
anticorruption programming to make real improvements in Malawi.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Robert K. Scott by Senator Cory A. Booker

    Question 1. As you may know, over two-thirds of Malawi's population 
is under 25 years old. The CIA World Factbook states, ``Rapid 
population growth and high population density is putting pressure on 
Malawi's land, water, and forest resources. Reduced plot sizes and 
increasing vulnerability to climate change, further threaten the 
sustainability of Malawi's agriculturally based economy and will worsen 
food shortages. About 80 percent of the population is employed in 
agriculture.''

   What steps do you think the United States and our donor partners 
        must take to ensure these young people have opportunities while 
        also addressing the threats from climate change on the Malawian 
        agriculture sector?
   What role do you think U.S. public diplomacy programs can play in 
        empowering young people in Malawi?

    Answer. The agriculture sector generates nearly 80 percent of 
household income in Malawi, but the country suffers chronic food 
insecurity. Over the past decade, the onset, distribution, and 
intensity of rains have become less predictable, rendering agricultural 
planning more difficult and reducing yields. The agriculture sector in 
Malawi is also susceptible to drought and pests, such as the Fall 
Armyworm infestation that recently ravaged the country's harvest. If 
confirmed, I would work with the Government of Malawi and donor 
partners to encourage adaptations in Malawi's agricultural sector to 
promote food security and create opportunities for the youth of the 
country. We can do this by helping to improve the agricultural policy 
environment, increasing the use of modern agricultural technologies, 
strengthening the competitiveness of selected value chains, 
diversifying smallholder farmer production away from maize and tobacco 
into other crops, and building household and community resilience.
    If confirmed, I would emphasize outreach to and exchange 
opportunities for youth in our public diplomacy programs, especially 
for youth entrepreneurship, science, and technology programming. I 
would highlight our ongoing focus on adolescent girls and young women 
and improving their access to education, especially in the STEM field. 
Through the Young African Leaders Initiative (YALI) Mandela Fellowship, 
our mission sends young Malawian leaders to the United States, and, if 
confirmed, I look forward to supporting this program and making contact 
with program alumni.

    Question 2. Ahead of what will likely be a closely contested 
election next May, I was concerned by the recent statement by the U.N. 
High Commission on Human Rights about the increasing number of threats 
and intimidation against human rights defenders and activists, 
particularly women. Additionally, there have been allegations of 
widespread corruption, during the current administration and previous 
ones, an issue that is likely to play into the May 2019 elections.

   What observers and assistance is planned for the elections next 
        year and what efforts do you think are needed now to ensure the 
        elections are conducted in a free, fair, and transparent 
        manner?
   How would you assess the current government's commitment to reform 
        and political backing for efforts to eradicate all corruption, 
        not just from political rivals, including through the Anti-
        Corruption Bureau?

    Answer. The United States has contributed funds to programs that 
support the 2019 elections in Malawi. These programs will expand long-
term political process monitoring; enhance detection, reporting, and 
mitigation of conflict; and assist media with professional and balanced 
reporting to inform citizens. Malawi has held regular, peaceful 
elections since democratization in 1994, and we will work to see this 
trend continue. If confirmed, I will lead our Mission in supporting 
issue-based civic and voter education to support peaceful elections. 
The 2019 elections are expected to be highly competitive, and we must 
take advantage of the opportunity to deepen our engagement with the 
people of Malawi. If confirmed, I will work with the Government of 
Malawi, civil society, and citizen groups to help ensure the elections 
are free and fair, including continuing the embassy team's work 
advocating for the access of women, minorities, and youth to the 
political process. If confirmed, I will continue the U.S. Government's 
leadership on elections-related issues, both in public and private 
diplomatic engagements, including participating in the Election Program 
Steering committee, a forum between the Government of Malawi and 
donors.
    Corruption remains a problem in Malawi. President Mutharika has 
stated that his administration will have zero tolerance for corruption, 
and the Government of Malawi has passed several pieces of legislation 
aimed at combatting corruption. President Mutharika set up a public 
sector reform commission, but his administration has yet to fully 
implement its recommendations. If confirmed, I would encourage the 
Government of Malawi to act upon the new legislation and would work to 
ensure that the promises of reform are met with actions.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Hon. Lucy Tamlyn by Senator Robert Menendez

    Question 1. Russia and the Central African Republic (CAR) signed a 
military cooperation agreement in August, and Russians are providing 
security for President Faustin-Archange Touadera. What does the 
agreement entail? Have Russia and CAR engaged in significant 
transactions of military equipment as defined under Countering 
America's Adversaries Through Sanctions Act and the administration's 
Executive Orders and guidance with respect to the law? If confirmed, 
how will you ensure the Government is aware of the law and that it is 
working to diminish significant transactions with the Russian defense 
sector? What alternatives to Russian security assistance will you 
recommend if confirmed as Ambassador? Should the U.S. continue to 
support an exemption to the current U.N. Arms Embargo allowing Russia 
to provide arms to the Central African Republic? How would this 
exemption be reconciled under mandates under the CAATSA law? If 
confirmed, what will you do to advocate that the Government of CAR 
fully cooperate with credible efforts to investigate the deaths of 
three Russian journalists investigating Wagner's activities in CAR?

    Answer. Russia and the Central African Republic (CAR) signed a 
military cooperation agreement on August 21, 2018. This agreement 
appears to codify actions that are already taking place. With the 
permission of the U.N. Security Council, Russia donated weapons and 
also sent 175 personnel to train the Central African Armed Forces 
(French acronym: FACA). The donation of military equipment and training 
do not represent a clear violation of the Countering America's 
Adversaries Through Sanctions Act (CAATSA). The CAR Government does not 
have the financial means to pay for significant numbers of weapons, but 
it is worth noting that there has been an increase in the activities of 
private Russian mining operations in CAR. If confirmed, I will work to 
ascertain whether the CAR Government received the weapons in exchange 
for granting mining concessions to private Russian companies, and if 
so, how that arrangement might have violated U.S. sanctions.
    If confirmed, I will leverage our strong relations with President 
Touadera and his government in order to highlight that the United 
States and its allies are CAR's best partners in the path towards 
creating a peaceful and stable country. I will also work with the CAR 
Government to ensure that it understands our laws (such as CAATSA) and 
how interactions and transactions with the Russian defense sector and 
Russian companies like Wagner could put CAR at risk of severe penalties 
and sanctions and compromise our ability to continue supporting CAR's 
progress.
    If confirmed, I will coordinate with State and Treasury Department 
officials to assess the interactions between the CAR Government and the 
Russian defense sector. I will also continue to caution the CAR 
Government that involvement with the Russian defense sector will place 
it at risk of sanctions.
    The United States and its partners, the European Union Training 
Mission (EUTM) and the U.N. Multi-dimensional Integrated Stabilization 
Mission to CAR (MINUSCA), are already helping build military and 
civilian security institutions in CAR. While the EUTM focuses in 
particular on training the FACA, the United States has focused on the 
police and gendarmerie. Currently, the Department of State provides 
training, uniforms, communications equipment, and funding for the 
renovation of key law enforcement facilities (training academies, 
investigations offices, and law enforcement stations). We also have 
provided the armed forces with tools they need to carry out their 
mission, including vehicles, uniforms, and first-aid kits. If 
confirmed, I look forward to working with the inter-agency to see how 
we might provide logistical and technical support to the FACA, so that 
it can better sustain its forces, especially outside of Bangui.
    If confirmed, I will increase our efforts in the area of public 
diplomacy in order to highlight the many ways in which we are already 
helping CAR. Although we are the largest humanitarian donor and a 
significant partner in building the capacity of the Government of CAR, 
that message does not always resonate with the public at large. I will 
work to improve our efforts to show Central Africans how our efforts 
and programs are helping to create a safer country and a stronger and 
more capable FACA. It is also essential that we engage more with the 
CAR military and law enforcement through programs like INCLE, IMET, 
military exercises, and other training and mentoring opportunities. For 
instance, we recently secured observer spots for high-ranking CAR 
military officers for the Silent Warrior exercise in Germany and are 
sending a team of law enforcement advisors to CAR for more than a year. 
These efforts will allow us to train future leaders within the military 
and civilian security sectors, establish rapport between the U.S. and 
CAR militaries, and improve the quality of the FACA through 
professional military education. These programs would also provide an 
alternative to Russian assistance, help achieve our shared goal of 
preparing the FACA to take back control over the entirety of CAR's 
national territory, and build the capacity of the police and gendarmes 
to maintain the peace.
    The United States and other U.N. Security Council members granted 
Russia an exemption to the U.N. arms embargo, which allowed it to 
provide much-needed weapons to the CAR military. The FACA needed these 
weapons, as its soldiers lacked the necessary equipment to carry out 
their mission. However, it is important that Russia and CAR conduct 
these weapons transfers transparently and in coordination with 
international partners and the U.N. peacekeeping mission (MINUSCA). 
Given the precarious security situation in CAR, we must ensure that we 
have the ability to track, inspect, and safeguard the weapons donated 
to the FACA. It has been our position on the Security Council, and that 
of France and the UK, to place a hold on any future transfers of 
weapons until these requirements are met. I will continue to 
communicate that position to the CAR Government and our other partners.
    The United States is committed to the strengthening of civil 
society and a free press in CAR. The Department of State supports 
programs to train journalists in CAR and highlights the importance of a 
critical and vibrant free press. The recent deaths of three Russian 
journalists investigating activities of the U.S.-sanctioned 
paramilitary company Wagner in CAR are deeply concerning. If confirmed, 
I will leverage our relationship with the CAR Government to press for 
further investigations into these deaths and ensure that those 
responsible for this gruesome crime face justice.

    Question 2. The mandate of the Multidimensional Integrated 
Stabilization Mission in the Central African Republic is due to be 
renewed in November:

   In your view, how effectively has the mission fulfilled its mandate 
        to take active steps to ``anticipate, deter and effectively 
        respond to serious and credible threats to the civilian 
        population?'' What resources would the mission need in order to 
        be more effective? If confirmed, what steps will you recommend 
        be taken to enhance effectiveness of the mission?

    Answer. It is important to acknowledge the incredibly difficult 
circumstances that MINUSCA faces. In a country the size of Texas, 
MINUSCA has fewer than 15,000 troops, police, and headquarters staff 
with which to pursue an expansive mandate that includes civilian 
protection. It have performed adequately in most instances. MINUSCA's 
ability to protect civilians, however, is limited by its inability to 
move around the country. Troops are tied to semi-permanent camps, and a 
lack of air transport and reliance on resource-intensive convoys 
hinders its mobility. In some instances, the Department of State is 
aware of reports of specific troop contingents failing to fulfill the 
mandate to protect civilians. We are closely engaged with MINUSCA's 
leadership and with U.N. officials to investigate these reports, 
determine the cause of any failures, and take swift action to correct 
them. If confirmed, I will press MINUSCA leadership to more effectively 
deploy its troops and enforce standards for performance and behavior.
    While MINUSCA is striving to fulfill its expansive mandate, it must 
also look for ways to more effectively leverage its limited resources. 
The marked lack of mobility hampers MINUSCA's ability to respond 
quickly to attacks against civilians or to emerging threats against the 
peace. Much of the mission is dedicated to operating and protecting 
convoys that move troops, police, and humanitarian aid around the 
Central African Republic. The lack of passable roads in much of the 
country means that it can take up to a month for a convoy to travel 750 
miles. One way that MINUSCA might improve its responsiveness is by 
revamping its forces to be more mobile and to streamline processes. The 
Secretary General and his Special Representative have provided 
recommendations for the Mission to improve in some of these areas. We 
are taking a close look at these recommendations to see which are 
sensible and likely to be effective and which ones may be better 
addressed through bilateral assistance.
    If confirmed, I will remain in close contact with MINUSCA 
leadership in the Central African Republic and with U.N. leadership in 
New York. As Ambassador, I would have no authority over the MINUSCA 
mission, but I would continue to build on the close working 
relationship that my predecessors have established. I will encourage 
MINUSCA to work closely with the CAR Government to expand state 
authority while protecting civilians and addressing intercommunal 
conflict at the local level. I will also emphasize our expectations for 
the effective deployment of peacekeepers to fulfill their mandate and 
for appropriate standards of performance and behavior.

    Question 3. According to Najat Rochdi, the U.N. Deputy Special 
Representative in CAR, 64 percent of the population are in need of 
assistance, but the humanitarian budget is less than 40 percent funded. 
What will you do as Ambassador to encourage other donors to provide 
additional support to the Central African Republic?

    Answer. The United States is currently, by far, the largest donor 
of humanitarian assistance to the Central African Republic. This is not 
to diminish the contributions of other international partners, such as 
the European Union. These partners are contributing in other key areas, 
including in security sector reform and the recently operationalized 
Special Criminal Court. If confirmed, I will work with our 
international partners to identify critical gaps and how we can address 
them. I will advocate for prioritizing response to emergency needs and 
building governmental and societal capacity to prevent and mitigate 
future emergencies. If confirmed, I will work to ensure that planning 
is informed and realistic. We will continue to work to address critical 
needs where we must, while instilling resilience and capacity as 
quickly as we can.
    USAID humanitarian assistance in CAR is leveraging other donor 
resources aimed primarily at recovery, rehabilitation, and development 
(where possible), by focusing on areas and populations with the most 
acute humanitarian needs and which are inaccessible to non-humanitarian 
actors. For example, in 2018 several USAID partners handed over health 
service activities in areas with relative stability to government 
structures supported by EU recovery funding. While difficult to predict 
locations, USAID will continue to phase out programming in areas where 
development actors are able to intervene and will focus humanitarian 
resources on locations and populations with the most acute needs.
    USAID is also funding a $9.9 million project to support the Central 
African Republic to improve traceability in its diamond supply chain in 
order to foster social cohesion, economic growth, and domestic resource 
mobilization. USAID is coordinately closely with the EU and the World 
Bank to leverage their funding to improve transparency and 
accountability in CAR's diamond mining sector.

    Question 4. What activities is the U.S. engaged in to strengthen 
key ministries and parliamentary bodies responsible for oversight of 
defense, the administration of justice, and law enforcement bodies? If 
confirmed, what activities in those areas will you recommend we 
emphasize?

    Answer. The United States currently focuses its efforts on 
improving the operations and capabilities of the security and justice 
sectors. We are also engaged with the CAR Government at the highest 
levels to improve its capacity to manage these institutions. In 
civilian security and justice sector reform, the Department of State is 
working to re-establish the operations of criminal justice institutions 
in CAR's cities to train and build capacity of law enforcement offices, 
investigators, prosecutors, judges, and prison staff; renovate key 
facilities; and improve operations management policies and processes. 
In terms of members of parliament, we have focused primarily on 
improving their connections to their constituents. Many of them are 
unable to visit the districts they represent and therefore communicate 
back to them primarily via radio.

    Question 5. Has there been a recent assessment about the potential 
for mass atrocities in CAR? Is the interagency prepared to take 
relevant preventative diplomatic and programmatic actions on an urgent 
basis should such atrocities unfold? If confirmed, what contingency 
plans to forestall mass atrocities will you recommend be put in place?

    Answer. The Atrocity Prevention Board in 2017 identified the 
potential for mass atrocities in the Central African Republic, and the 
interagency continues to monitor the situation. The Department of State 
has a team that has provided continual, updated analysis of conflict 
drivers and dynamics--not only in CAR but also in the region. In my 
preparations for this post, I have consulted with experts at the 
Department, at USAID, and our partners in the interagency. I am 
confident that we are closely monitoring these elements in CAR and are 
enacting specific programming, including community violence reduction 
and reconciliation programs, to combat potential atrocities.
    In the violence that spiked in April and May of this year, a 
combination of action taken by MINUSCA and the local security forces, 
as well as efforts by our embassy to calm the populace while supporting 
the Government of CAR, helped to prevent a wider spread of conflict. I 
want to express my admiration for the effective work done by our 
Embassy during that difficult time, and I intend to build on that work 
to continue our outreach to communities and to the Government. I will 
continue to work closely with our experts to craft plans and advocate 
for policies to prevent and mitigate potential atrocities.

    Question 6. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to the Central African Republic?

    Answer. Yes. If confirmed, I commit to working with and briefing 
Members of Congress and their staff during my tenure.

    Question 7. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Promoting and protecting human rights has been a core part 
of my Foreign Service career. As a delegate to the U.N. Human Rights 
Commission from 1995-1999, I lobbied for U.S.-sponsored resolutions 
that shed light on horrific human rights abuses in numerous countries 
and put political pressure on those countries to improve their human 
rights regime. I was also the primary negotiator for the landmark 
``Right to Democracy'' resolution approved at the Commission in 1999. 
In 2014, as Director of the Office of the Special Envoy for Sudan and 
South Sudan, I led the team that coordinated the asylum request for a 
Sudanese woman who faced threats to her life due to her religion.

    Question 8. What issues are the most pressing challenges to 
democracy or democratic development in the Central African Republic? 
These challenges might include obstacles to participatory and 
accountable governance and institutions, rule of law, authentic 
political competition, civil society, human rights and press freedom. 
Please be as specific as possible.

    Answer. The Central African Republic has a democratically elected 
government, following internationally recognized free and fair 
elections in 2016. However, the authority of the central government 
does not reach far beyond the capital of Bangui. Armed groups--
primarily community militias and criminal organizations--control the 
majority of CAR's territory. Most elected officials live in Bangui and 
cannot effectively represent their constituents; their presence in 
their districts is at the whim of the armed groups that control those 
areas. The security and justice sectors, which collapsed during the 
conflict in 2015, are in the slow process of rebuilding, and courts are 
only beginning to function again, with U.S. assistance. Recent strides 
in the capability of the security forces and the courts are heartening, 
but are only the first steps of a process to rebuild.
    The National Assembly recently brought the Special Criminal Court 
(SCC) into operation through legislation. The SCC has a panel of 
judges, officials, and a body of investigations officers. It suffers, 
though, from a lack of resources and does not have sufficient resources 
to operate through its five-year mandate.

    Question 9. What steps will you take--if confirmed--to support 
democracy in the Central African Republic? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. The Department of State will continue its robust support to 
the elected government of President Touadera, the security and justice 
institutions, and the AU-led peace process. We have provided 
considerable support and training to the military and to the police 
forces and gendarmerie that secure the country and protect the civilian 
population. In the meantime, we continue to support the U.N. 
peacekeeping mission in CAR (MINUSCA) that is helping provide stability 
and security in CAR until the CAR Government can provide its own 
security. We work with the criminal justice institutions to deploy and 
extend governance to CAR's provinces. The United States engages with 
civil society actors to manage local conflict in communities and is 
also working with elected officials to improve their communication and 
outreach. If confirmed, I will continue to support our efforts towards 
improving governance and accountability in CAR. I will work closely 
with our international partners and the CAR Government to help build 
its capacity while also conveying our expectations for improvement.

    Question 10. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. In CAR we are balancing the immediate need for security 
with the understanding that, ultimately, a political solution is needed 
to provide enduring peace and prosperity for Central Africans. If 
confirmed, I will continue to support the expansion of the rule of law 
by strengthening the courts, law enforcement, and corrections 
institutions through our existing programming. USAID, the Department of 
State, and partner NGOs will continue to provide immediate humanitarian 
needs to forestall the desperation that can fuel violence. We are also 
working to build resilience in communities threatened by armed groups. 
USAID supports improved governance in protected areas and in the 
artisanal mining sector, including efforts to disrupt the illicit 
trafficking of minerals and wildlife that finances criminal groups in 
CAR. Conservation activities will retain CAR's embattled Chinko Nature 
Reserve as a pole of governance and stability for surrounding 
communities, in part by disrupting trafficking in wildlife and other 
products. In addition, we will work with civil society and with the AU 
to reduce the conflict in CAR. These efforts complement and reinforce 
each other. I would also continue to work with the Government of CAR to 
improve its ability to communicate with the people of the country, both 
in responding to emergencies and in countering the kinds of hate-speech 
and inflammatory rhetoric that can fuel violence.

    Question 11. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in the Central African Republic? What steps will you take to 
pro-actively address efforts to restrict or penalize NGOs and civil 
society via legal or regulatory measures?

    Answer. The Department of State is already working in CAR with a 
number of civil society actors: local communities in towns around the 
country, as well as NGOs, such as Search for Common Ground and 
Communities in Transition. We are addressing issues ranging from 
intercommunal conflict, horrific sexual and gender-based violence, and 
child soldiers, to the disruption of humanitarian aid. If confirmed, I 
will continue this work.

    Question 12. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. In the Central African Republic, U.S. officials have 
maintained a constructive dialogue with the legitimate political 
opposition, while encouraging the armed groups to cease hostilities and 
join the political process. If confirmed, I intend to ensure that this 
effort is continued and that support widens for the AU-led peace 
process. We will also continue to engage with the democratically 
elected government to ensure that political space for opposition and 
criticism is not closed.

    Question 13. Will you and your embassy team actively engage with 
the Central African Republic on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in the Central African 
Republic?

    Answer. CAR has an active radio and printed press and, if 
confirmed, I will work with the elected government in CAR to see that 
this continues. The Department of State already supports local press 
and provides training and advice to budding journalists and 
documentarians. If confirmed, I would like to broaden our efforts to 
make the media space in CAR more resistant to misinformation and rumor, 
and to strengthen voices that counter the calls to violence or 
discrimination.

    Question 14. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. This is a serious concern in CAR. We are engaged in a 
number of programs to quell the rumors and conspiracy theories that can 
spread in CAR's political environment. At the same time, we are working 
to the counter malign influence of external actors seeking to upset the 
fragile political balance with false information or inflammatory 
rhetoric and hate speech. If confirmed, I will continue to work with 
civil society and government leaders to ensure that outside actors do 
not unduly influence political processes or coopt Central African 
voices for their own purposes.

    Question 15. Will you and your embassy teams actively engage with 
the Central African Republic on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Per Central African law, there are no restrictions on 
workers forming labor unions to collectively represent themselves. 
There are membership and leadership restrictions based on citizenship--
for example, non-citizens must be resident in CAR for two to three 
years. Under my tenure, if confirmed, we will continue to engage with 
the Government and through the International Trade Union Confederation 
to encourage the CAR to maintain and expand the rights of workers. Our 
greatest concern is the practice of forced labor by criminal armed 
groups who coerce workers, even children, to work in artisanal mines 
and to serve as combatants. Our focus will be on ending these abhorrent 
practices as part of the peace process.

    Question 16. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the Central 
African Republic, no matter their sexual orientation or gender 
identity? What challenges do the lesbian, gay, bisexual, transgender 
and intersex (LGBTI) people face in the Central African Republic? What 
specifically will you commit to do to help LGBTI people in the Central 
African Republic?

    Answer. Although our focus in CAR is on the continuing violence and 
the widening intercommunal and sectarian divides, we engage in 
discussions of basic human rights, whether it involves religious 
freedom, protection and inclusion for women and girls, or the rights of 
LGBTI individuals. The dignity and rights of all people are sacred, and 
we will work to see that Central Africans of all walks of life enjoy 
those rights. While same-sex relationships are not illegal in CAR, our 
own report on human rights practices in CAR notes that that they are 
subject to discriminatory practices and restrictions on public 
expression. The Department of State is working with vulnerable 
populations, such as LGBTI individuals, to protect them from mob 
violence, mob justice, and assist them in getting access to justice 
when they need it. As CAR develops its democratic institutions and the 
reach of its government's authority, we will explore ways to more 
closely engage on this topic.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Lucy Tamlyn by Senator Benjamin L. Cardin

    Question 1. Russia's military, military intelligence, and private 
security contractors appear to have increased their presence in CAR in 
recent years. What is the nature of Russia's interests in CAR?

    Answer. Currently, there are two different sets of Russian actors 
with different but interconnected interests in the Central African 
Republic (CAR). First, there is the official Russian Government 
presence in CAR, represented by the five Ministry of Defense officers 
overseeing the Russian mission to train, equip, and advise the Central 
African military forces (FACA). There is also a non-governmental 
Russian presence in CAR in the form of the U.S.-sanctioned paramilitary 
company, Wagner.
    In our estimation, the Russian Government's primary interests in 
CAR are to extend its geopolitical and military influence in CAR and on 
the continent by presenting itself as a more responsive partner than 
Western countries and with fewer conditions on human rights and 
governance. Moscow sought and received a waiver from the U.N. Security 
Council last year to donate much-needed weapons to the FACA. It also 
provided a cadre of approximately 175 trainers, primarily paramilitary 
contractors, operating under the name of a CAR-based company, Sewa. On 
August 21, 2018 Russia and CAR signed a military cooperation agreement 
which codified these activities.
    Wagner operates through locally created affiliates Sewa Security 
and a mining company, Lobaye Invest. The United States has sanctioned 
Wagner, along with its founder, Dimitry Utkin, and alleged owner, 
Yevgeny Pregozhin, for their activities in Ukraine. Wagner has also 
been active in Syria, Sudan, and Libya. Wagner serves as a tool to 
further the goals and objectives of the Russian Government in CAR, but 
the company's primary interest in CAR is commercial. It has been 
involved in diamond and gold mining activities throughout the country, 
including in areas dominated by armed groups--a potential violation of 
U.N. sanctions. Wagner provides the security detail for President 
Touadera, as well as the majority of the Russian trainers on the ground 
in CAR. Furthermore, Valerii Zakharov, a Russian national who currently 
serves as President Touadera's National Security Counselor, is a 
contractor and very likely a Wagner employee.

    Question 2. Does Russia's engagement in CAR compromise U.S. 
interests?

    Answer. Russia's security sector activities in CAR have been 
legally permissible. However, Russia's engagement in CAR could 
potentially have serious repercussions for U.S. interests in the 
country. First, the United States has strongly supported the AU-led 
peace process, both diplomatically and financially. Recently, Russia 
and Sudan have facilitated parallel talks in Khartoum between armed 
groups. Recent reports in CAR state that during these meetings, armed 
group leaders received 30 million CFA ($53,000) to depart the country. 
These negotiations occurred without input from the AU, and without 
outside observers, including the United States. Russian and Sudanese 
Governments claim that they support the AU-led process, but these 
parallel talks could create confusion and undermine the authority of 
these negotiations. Also, the armed groups could use the Khartoum talks 
as an alternative process to strengthen their position or pursue 
blanket amnesty for their role in atrocities.
    The United States and its partners are training and building the 
capabilities of the CAR security forces. In coordination with the 
European Union Training Mission (EUTM) and MINUSCA, we have provided 
more than $20 million in logistics, equipment, and training to the FACA 
since 2015 and nearly $17 million supporting the law enforcement 
sector. Training led by the United States, MINUSCA, or the EUTM 
includes the importance of respecting human rights and of civilian 
control of the military. Wagner and Russian military personnel are also 
training FACA troops and have expressed interest in training police and 
gendarmes. Given Wagner's record of disregard for human rights and 
international norms in Ukraine and Syria, we are concerned that the 
training they are providing could undermine previous efforts. The FACA 
and police have moved away from a history of predation on the 
population and serious human rights violations. That could be at risk 
if they continue to be associated with Wagner.
    Russia's engagement in CAR could place the Government of CAR at 
risk of U.S. sanctions, undermining our ability to engage with Touadera 
and his Government. The donation of military equipment and training by 
the Russian Government does not represent a clear violation of the 
Countering America's Adversaries Through Sanctions Act (CAATSA). 
However, by deepening its ties with Wagner and the Russian defense 
sector, the CAR Government is coming close to that line. If confirmed, 
I will leverage our strong relationship with Touadera and his 
government in order to highlight that the United States and its allies 
are CAR's best partners in the path towards creating a peaceful and 
stable country. I will reinforce that all international partners are 
welcome to assist in the effort of rebuilding CAR's security forces, 
but that their involvement must be transparent and coordinated to 
ensure success. And, I will also work with the CAR Government to ensure 
that it understands our laws (such as CAATSA) and how interactions and 
transactions with the Russian defense sector and Russian companies like 
Wagner could put it at risk of severe penalties and sanctions and 
compromise our ability to continue supporting CAR's progress.

    Question 3. Will you commit to tracking Russia's engagement in CAR 
and keeping this committee abreast of any concerning developments 
related to Russia's involvement in CAR?

    Answer. If confirmed, I will follow Russia's ongoing engagement 
very closely and seek to ensure that it does not compromise our work, 
objectives, or interests. I also commit to working with Members of 
Congress and ensure that they stay informed on the latest developments 
in CAR. Congress has always been a key player in the process of 
crafting and implementing the U.S. Government's policies and objectives 
for CAR. If confirmed, I will do my best to ensure that this strong 
partnership continues.

    Question 4. Our European allies have provided support to establish 
an internationally-backed Special Criminal Court to prosecute war 
crimes and crimes against humanity committed since 2003. What is the 
status of the Court and what is your assessment of its resources, 
capacity and effectiveness?

    Answer. The Special Criminal Court is operational, and 
investigations began earlier this year. The United States has commended 
the CAR Government on the progress made so far. We also recognize that 
the Special Criminal Court (SCC) faces severe constraints. These 
include a lack of funding for this year and future years; lack of 
judicial and law enforcement capacity; lack of permanent premises; lack 
of maximum-security corrections facilities; and security risks to 
victims and witnesses from powerful armed groups. The Department 
currently has programs to address the lack of judicial capacity and 
corrections facilities to support the lower courts and the SCC. If 
confirmed, I will continue this important work.

    Question 5. Is the United States providing assistance to the Court? 
Do you support United States assistance to the Court?

    Answer. The Department of State has supported the CAR Government's 
efforts to establish and operationalize the CAR Special Criminal Court. 
The Department of State has also provided more than $1.25 million in 
general assistance to CAR's court system, including to the Special 
Criminal Court. That assistance has included training of CAR judges, 
prosecutors, investigative police, and defense lawyers, providing 
equipment for SCC staff, establishing case file management and evidence 
control systems, and renovating judicial and corrections facilities. If 
confirmed, I will continue to explore additional ways to support the 
Special Criminal Court and the judicial sector in CAR more broadly.

    Question 6. MINUSCA's mandate is due for renewal in November 2018. 
It appears that MINUSCA is looking to provide logistical support to CAR 
Security Forces (FACA), which is outside its mandate. What is your 
stance on the U.N. Secretary General's proposal to the U.N. Security 
Council to authorize MINUSCA logistical support for FACA?

    Answer. Currently, MINUSCA is responsible for the stability and 
security that we see in CAR. International efforts to build the 
capacity of the FACA and law enforcement bodies have shown good results 
in the soldiers, police, and gendarmes who have been able to deploy 
outside of Bangui. In some cases, FACA soldiers and law enforcement 
officers have deployed alongside MINUSCA troops, and their relative 
advantages have worked well together. MINUSCA has a superior 
administrative and logistical capacity, but its personnel are largely 
tied to working from established bases or from their vehicles. Few 
MINUSCA personnel speak the local language, and many are not 
comfortable interacting with the population they are mandated to 
protect. On the other hand, FACA troops and internal security forces 
often have a superior knowledge of the geographic and human terrain, 
speak the language, and can operate on foot and among the people.
    My colleagues at the Department of State are discussing the 
recommendations of the Secretary General with great interest. If 
confirmed, I will support the position of the administration and the 
decision that is made in New York regarding MINUSCA support to the 
FACA. In the meantime, I will continue to further our bilateral 
relationship with the CAR Government and its military and security 
forces. I will also work with our international partners, such as 
France and the European Union, to provide support and capacity building 
to the security sector.

    Question 7. Under what conditions should support be offered, if 
any?

    Answer. If offered, support should be practical and serve the 
purpose of working towards the goal of a stable, self-sufficient, and 
peaceful Central African Republic. The resources must be available not 
only to make the support effective at supporting current operations, 
but also to build the capacity of CAR's military and security forces in 
order to avoid the pitfall of fostering dependency. This would have to 
be done in the context of an already constrained budgetary environment 
and will be a difficult hurdle. The support should also strengthening 
the military and security forces to be self-sufficient; respect 
civilian authority, human rights, and the rule of law, and represent 
the population of the Central African Republic.

    Question 8. What changes to MINUSCA's mandate would you advocate, 
if any?

    Answer. In preparation for this position, I will continue to 
consult with experts at the Department of State regarding MINUSCA and 
the security situation in CAR. If confirmed, I will rely on that 
expertise and the direction of the Department and the administration to 
advocate for policies with the Government in CAR. If confirmed, I will 
continue the strong relationship with MINUSCA's leadership that my 
predecessors have established and do what I can to continue to support 
the mission's successful completion.

    Question 9. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. From service as a U.S. delegate to the U.N. Human Rights 
Commission to working to protect the life of a young Sudanese woman 
accused of apostasy, promoting and protecting human rights has been a 
core part of my Foreign Service career. As a delegate to the U.N. Human 
Rights Commission from 1995-1999, I advocated for important U.S.-
sponsored resolutions that shed light on horrific human rights abuses 
in numerous countries and put political pressure on those countries to 
improve their human rights practices. I was also the primary negotiator 
for the landmark ``Right to Democracy'' resolution approved at the 
Commission in 1999. In 2014, as Director of the Office of the Special 
Envoy for Sudan and South Sudan, I led the team that coordinated the 
asylum request for a Sudanese woman who faced threats to her life 
because of her religion.

    Question 10. What are the most pressing human rights issues in CAR? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in CAR? What do you hope to 
accomplish through these actions?

    Answer. As noted in the 2017 Human Rights Report, the most 
significant human rights issues include reports of arbitrary and 
unlawful killings by government agents, enforced disappearance, and 
sexual violence. There are also instances of arbitrary arrest and 
detention; delays in holding criminal sessions in the judicial system, 
harsh and life-threatening prison conditions, seizure and destruction 
of property without due process, use of excessive and indiscriminate 
force in internal armed conflict, restrictions on freedom of movement, 
lack of protection and access for internally displaced persons to basic 
services, corruption, harassment of and threats to domestic and 
international human rights groups, lack of accountability, forced 
labor, and use of child soldiers.
    To address these issues, if confirmed, I will continue to support 
efforts to reduce the influence and power of armed groups throughout 
CAR. These efforts include the disarmament, demobilization, and 
reintegration (DDR) of armed elements that contribute to an environment 
of predation, violence, and lawlessness in the country. Such efforts 
also include supporting the AU-led peace process and addressing the 
illicit supply chains of minerals, wildlife, and other natural 
resources that finance armed groups. I will also continue to support 
humanitarian assistance to meet the immediate needs of the people of 
CAR and development assistance to build the capacity of the CAR 
Government and civil society.
    If confirmed, I would continue our partnership with the CAR 
Government to help train the military and civilian security forces and 
our work with the U.N., the CAR Government, and our international 
colleagues to advance security assistance and judicial sector reforms. 
These go beyond training soldiers and police to include reinvigorating 
courts, improving the detention system, and enabling deployment of 
forces to where they are needed. Advancing the presence and power of 
the state will further advance accountability, respect for human 
rights, and support protection of civilians and access to justice in 
CAR.

    Question 11. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in CAR in advancing 
human rights, civil society and democracy in general?

    Answer. The lack of state presence and capacity outside of the 
capital is the greatest obstacle to improving the human rights 
situation in CAR. In many regions, local residents insist that they 
want to see the military and police deployed, and courts properly 
functioning, to ensure stability and the safety of the population. 
Central Africans do not want to have to rely on poorly organized and 
largely uncontrolled local militia for protection. The proliferation of 
such militia has only fed conflict and predation. Combatting the 
longstanding and widespread impunity in CAR will require a strong 
security sector with proper accountability and a justice sector that 
can hold criminals responsible.
    Given CAR's history of violence, reconciliation between communities 
will be both difficult and vital. The increasingly sectarian rhetoric 
used by some parties to motivate, support, and justify violence must be 
defused. Communities that have fallen victim to violence will have to 
enact mechanisms, whether through restorative justice or otherwise, to 
reconcile and create a better future.

    Question 12. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in CAR? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. We have strong relationships with NGOs, civil society, and 
political organizations in CAR. Over the last few years, our embassy 
staff has developed a strong, frank, and open relationship with these 
actors. This has helped us to focus resources where they are most 
needed and to prevent political conflict. If confirmed, I will continue 
those efforts.
    We are careful to vet all recipients of our security assistance. 
This requirement can sometimes slow the rollout of programs and cause 
some consternation in the CAR Government, but we must ensure that 
taxpayer dollars are spent wisely and appropriately. If confirmed, I 
will proactively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights, and I will strongly urge the CAR 
Government to hold any violators accountable for their actions.
    Our training for the military, the police, and gendarmes includes 
human rights elements. If confirmed, I will work to make sure that we 
are teaching the appropriate material at the appropriate level, 
engaging with each level of command on the importance of respecting 
human rights and how this makes the security forces more effective in 
their duties.

    Question 13. Will you and your embassy team actively engage with 
CAR to address cases of key political prisoners or persons otherwise 
unjustly targeted by CAR?

    Answer. Our embassy in Bangui has been proactive in engaging with 
the CAR Government regarding the need to provide political space for 
opposition. President Touadera himself ran as an independent rather 
than as a candidate of a pre-existing political party. He has included 
political opposition within his government and has voiced an intent to 
assemble a government and security apparatus that is representative of 
the country as a whole. I will hold him to this and help him to 
institute the policies to get there, if confirmed.

    Question 14. Will you engage with CAR on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will strive to ensure that the United Sates 
and our embassy remain an active partner of the CAR Government as it 
continues to work towards creating a peaceful and democratic nation 
characterized by the protection of human rights, strong governance, and 
a vibrant civil society.
    Our embassy officials have maintained a constructive dialogue with 
the legitimate political opposition, while encouraging the armed groups 
to cease hostilities and join the political process. If confirmed, I 
intend continue this effort and will engage with the elected government 
to ensure that political space for opposition, civil society, and 
criticism is not threatened.
    If confirmed, I will continue to support bilateral and 
international efforts to improve good governance, development, justice, 
and security in CAR. U.S. assistance has been essential in helping the 
democratically elected government to weather several crises. We will 
continue to help build an accountable and professional government, 
military, security, and judicial structure that will serve and protect 
the people of CAR and aid in bringing peace, security, and prosperity 
to the country.

    Question 15. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 16. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 17. Do you or do any members of your immediate family have 
any financial interests in CAR?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in the Central African Republic.

    Question 18. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will ensure that all staff understand the 
importance of full compliance with Equal Employment Opportunity (EEO) 
and that we have well-trained and active EEO counselors who conduct EEO 
trainings and carry out activities that highlight the importance of 
promoting inclusion and diversity for American and local employees 
alike. As part of routine mentoring, I will encourage staff from 
diverse backgrounds and underrepresented groups to seek out resources 
and advice on performance and career planning make sure that they are 
aware of ``affinity groups'' within the State Department and elsewhere 
and make clear my support for similar affinity groups at post if 
employees are interested in forming them.

    Question 19. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will make clear that the EEO language in 
every employee's work requirements will be considered an integral part 
of successful job performance during the evaluation period. I will 
regularly seek feedback from employees on their perceptions of their 
workplace environment and correct issues, which detract from an 
inclusive workplace. I will recognize those employees who demonstrate 
exceptional EEO leadership.

    Question 20. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in CAR 
specifically?

    Answer. The largest threat to democratic governance and the rule of 
law in CAR remains the fact that the state controls little beyond the 
capital. Armed groups--primarily community militias and criminal 
organizations--control the majority of CAR's territory and natural 
resources where they tax, plunder, and exploit the local populations 
with impunity. Furthermore, such groups mimic legitimate governance, 
abusing their power to punish crimes and mete out arbitrary justice. 
With our assistance, the security forces are rebuilding their 
capability to take back control of the country.
    Since 2015, the CAR Government has worked to rebuild its governance 
capabilities, but corruption remains. The judicial system suffers from 
a lack of resources, training, and personnel. It does not have a 
consistent presence throughout the country. Moreover, judicial 
officials are reluctant to leave Bangui and attend to their assigned 
offices in the provinces. This leads to extended detentions, 
persistence of impunity, failure to support local governance, and the 
uneven application of justice. The CAR penal code criminalizes bribery, 
undue benefits, embezzlement, abuse of office, favoritism, and the 
offer, promise, or solicitation of gifts. However, the corruption of 
local officials and companies is rarely prosecuted or punished.
    The police and military continue to suffer from incidences of petty 
corruption. There is also corruption among government officials, 
particularly those involved with customs administration and CAR's 
natural resources. The lack of state presence has created a fertile 
ground for illegal economic activity, particularly mining and smuggling 
of natural resources, including diamonds, gold, and wildlife products 
such as elephant ivory. Smuggling of diamonds, gold, and other natural 
resources is common and at times facilitated by corrupt government 
officials, fostering impunity and undermining the rule of law. Private 
companies still engage in bribery, with government officials receiving 
gifts and other benefits in return for obtaining permits, bypassing 
prosecution, and receiving special access to government resources and 
processes.

    Question 21. What is your assessment of corruption trends in CAR 
and efforts to address and reduce it by that government?

    Answer. The CAR Government, judiciary, and security forces face 
many challenges as they seek to combat long-standing issues of 
corruption. However, progress has been made towards reducing corruption 
in the country.
    Embassy Bangui has played a key role in helping the CAR Government 
in its fight for increased transparency and good governance. The 
embassy team has forged strong ties with President Touadera and his 
government. This close relationship has enabled us to be active 
participants in anti-corruption efforts in the country. If confirmed, I 
look forward to building on this relationship and continuing this 
positive trend.
    The United States Government is the leading force in a variety of 
programs that are essential in creating a more efficient, responsive, 
representative, and transparent government in CAR. For example, we are 
working to build the expectation for proper governance by helping 
elected officials improve their communication, outreach, and 
representation of their constituencies.
    The United States, along with our international partners, has 
helped train and prepare the police and military forces of CAR, and our 
efforts have yielded positive results. Over the last few months, FACA 
troops have deployed outside of Bangui with success. Significantly, 
they have maintained a positive reputation with the local population. 
Although these are only the first steps, the professionalism and 
competence exhibited by these forces have been heartening.
    We also have been a key partner to law enforcement and the 
judiciary in CAR as it seeks to break the cycle of criminality and 
impunity that has held the country back and fueled violence. We have 
provided training and equipment to the courts; helped train lawyers, 
judges, and court staff; and educated the public on their rights. This 
has allowed the district criminal courts in Bouar, Bangui, and Bambari 
to re-open, with some courts operating for the first time in more than 
ten years. Furthermore, the CAR Government has recently operationalized 
the Special Criminal Court (SCC). The SCC has a panel of judges, 
officials, and a body of investigations officers. The Court expects to 
begin formal investigations in October of this year.
    USAID supports the Government of CAR to implement the Kimberley 
Process (KP) for diamonds to address the issue of conflict diamonds and 
tackle corruption in the sector. CAR is the only country in the world 
that still has conflict diamonds as defined under the KP. From 2013 to 
2015, CAR was temporarily suspended from the KP, effectively banning 
the legal export of diamonds. Since lifting of the temporary suspension 
in 2015, incremental progress has been made, but significant challenges 
remain. An estimated 82 percent of rough diamonds continue to exit the 
country illegally. In addition, only 36 percent of mined rough diamonds 
in the KP-compliant zones are legitimately exported. In an effort to 
increase legal exports, the Government of CAR has undertaken a number 
of activities to implement the KP Operational Framework, which sets 
forth how CAR must comply with KP requirements to maintain the legal 
export of diamonds.

    Question 22. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in CAR?

    Answer. If confirmed, I will build on the excellent work already 
done by our embassy in Bangui and will engage directly with President 
Touadera and his ministers to address issues of petty corruption by 
strengthening oversight of ministries and cracking down on ``informal'' 
taxation and fees often used by officials to add to their income. As 
the people and officials of CAR work to create a more transparent, 
democratic, and responsive government, I will work to ensure that they 
continue to find in the United States a strong and dependable partner.
    If confirmed, I will serve as a strong advocate and supporter of 
our efforts and programs to train and rebuild the CAR military and 
security forces as professional and law abiding institutions that 
protect the rights of the citizenry. I will also work with President 
Touadera and our international partners to ensure the success of our 
programs which seek to strengthen the CAR justice system and expand the 
reach of the rule of law. From training judges and investigators, 
implementing standard procedures and practices, repairing courts and 
prisons to educating the public on their rights, the U.S. Government is 
committed to helping develop lawful governance in CAR as the best way 
to fight corruption and impunity. If confirmed, I will work tirelessly 
to ensure that we are making steady progress to achieving these 
objectives.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Eric William Stromayer by Senator Robert Menendez

    Question 1. In July, heads of state from the Economic Community of 
West African States (ECOWAS) issued a communique suggesting the 
Government and political actors adopt a series of measures, among them 
speeding up the judicial procedures for those arrested during political 
demonstrations, and constitutional reforms including limitations on 
presidential term limits.

   In your view, will the recommended reforms help lessen current 
        political tensions? What is the status of the constitutional 
        reforms? Have proceedings for those arrested during 
        demonstrations been expedited? What role should the United 
        States play to support political reforms in Togo? If confirmed, 
        what specific actions will you take to support reforms?

    Answer. Following the ECOWAS summit in July 2018, the opposition 
agreed to participate in the ECOWAS electoral monitoring committee and 
the independent electoral commission (CENI). The Government has made 
progress on expediting proceedings for some of those arrested during 
the demonstrations. The Government has further shown readiness to 
compromise in accepting an ECOWAS-proposed rebalancing of the Electoral 
Commission. While the Government has been open to enacting run-off 
voting and term limits, ECOWAS did not take a position on whether term-
limits should apply to the incumbent, leaving this decision to the 
political process. This has been a source of tension and a sticking 
point in the ongoing negotiations. If confirmed, I will continue to 
support this ECOWAS-facilitated political dialogue to ensure 
implementation of the recommendations, and that members of the 
opposition are consulted and are active participants in instituting 
these reforms.

    Question 2. What programs and activities is the United States 
undertaking to support democracy and governance in Togo? If confirmed, 
what actions will you recommend we take to further open democratic 
space in Togo?

    Answer. U.S. assistance has been critical to encouraging positive 
democracy and governance reforms in Togo. For example, efforts by the 
Togolese Government to implement reforms in order to meet Millennium 
Challenge Corporation (MCC) preconditions have had an overall positive 
effect on government transparency. If confirmed, I will seek to 
leverage the Government's strong desire for an MCC Compact to encourage 
further reforms that improve transparency and reduce corruption. On the 
security assistance side, International Military Education and Training 
(IMET) support targets civil-military relations, human rights, military 
justice, and the role of the military in a democracy. If confirmed, I 
will continue to leverage our very successful public diplomacy programs 
such as the Young Africa Leaders Initiative to help support and 
encourage the next generation of reformist Togolese leaders. Programs 
to support and defend the freedom of the press are also critically 
important, and I will seek to continue those, should I be confirmed.

    Question 3. The 2018 Trafficking in persons report lists Togo on 
the Tier Two Watch List. According to the report, ``The Government 
reported investigating and prosecuting eight cases involving eight 
alleged traffickers. Authorities convicted seven of the eight suspects 
under articles 317 through 320 in the revised penal code in 2017, 
compared with 101 investigations and 60 convictions of traffickers in 
2016. The Government did not report any investigations, prosecutions, 
or convictions of government officials complicit in human trafficking 
offenses.''

   What accounts for the decrease in investigations and convictions? 
        What types of assistance should the United States provide to 
        help combat trafficking? If confirmed, what steps will you take 
        to ensure that the Government takes meaningful steps to combat 
        trafficking in persons?

    Answer. The Government of Togo has demonstrated the will to fight 
trafficking in persons (TIP) but lacks sufficient capacity to do so. In 
2015, the Government of Togo instituted a new penal code, drafted with 
support from France and the U.N., which included strict TIP-related 
penalties. Ministry of Justice officials tell us, however, that the 
harsher penalties contained in the new law have resulted in reduced 
arrests and prosecutions. Criminal justice sector officials appear to 
believe that incarcerating heads of households who traffic their 
children will exacerbate the poverty driving them to traffic their 
children in the first place.
    The Togolese Government, with support of the U.S. Embassy, has 
already taken steps to improve its anti-trafficking efforts. In April 
2018, two State Department-funded workshops trained over 42 
participants, including magistrates, police officers, and customs 
officials on the trafficking provisions of the 2015 penal code. In 
addition, U.S. funding supported a local NGO to train 23 journalists 
and 35 social workers from various NGOs and conduct an awareness 
raising campaign that included a trafficking documentary, brochures, 
posters, and a series of radio and drama productions throughout the 
country. Following this, the Government of Togo established a formal 
partnership with an international NGO in support of a regional program 
targeting TIP and illegal immigration.
    If confirmed, I will urge the Government of Togo to increase 
efforts to convict and punish traffickers, complete and enact the draft 
law prohibiting forced labor and forced prostitution of adults, and 
train law enforcement and other government officials to provide care to 
victims.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As a junior officer I joined election monitoring teams 
overseas to promote democratic processes, and in more recent years, I 
have played a more senior policy-related role. As the Executive 
Director for the Africa Bureau (AF) from 2014-2017, I advocated in 
senior staff meetings for AF funding for election monitoring and human 
rights related programming in numerous places across the continent. 
With this support, the U.S. Mission in Abuja played a crucial role in 
the Nigerian elections which resulted in a peaceful transfer of power 
in 2015. As Deputy Chief of Mission and Charge d'Affaires a.i. 2008-
2011 in Madagascar, I advocated for a return to democratic norms 
following the March 2009 coup. With like-minded third country 
diplomats, I maintained pressure on the coup regime, which eventually 
was forced to return to democratic processes. In the past year as 
Acting Deputy Assistant Secretary for East Africa and Sudan and South 
Sudan, I was a key player in Washington's efforts to encourage a 
peaceful, credible outcome to the two rounds of the Kenyan elections 
and to bring peace to South Sudan to address the ongoing human rights 
tragedy unfolding there. My role included advocating for democratic and 
human rights with senior-level government and opposition leaders from 
Kenya and South Sudan.
    I led the Africa/Near East Asia/Oceans and International 
Environmental and Scientific Affairs delegation to meetings in Cairo, 
Khartoum, and Addis Ababa advocating for mutually advantageous ways to 
move forward with the eventual filling of the Grand Ethiopian 
Renaissance Dam (GERD) which, when operational, will potentially allow 
for enhanced standards of living and nutrition for tens of millions in 
all three of those countries. Our efforts contributed to calming what 
easily could have escalated into a serious international confrontation.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in Togo? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Togo is going through a period of political upheaval, as 
the historically divided opposition has united in an effort to prevent 
President Faure Gnassingbe from standing for a fourth presidential term 
in 2020. This is a pressing challenge to democracy. A coalition of 14 
opposition parties (C14) has demonstrated uncharacteristic solidarity 
in a dialogue with the Government facilitated by ECOWAS mediators. This 
was largely due to the coming together of two opposition figures, Tikpi 
Atchadam of the Panafrican National Party (PNP) and long-time 
opposition leader Jean-Pierre Fabre of the National Alliance for Change 
(ANC).
    Political protests in 2017 and 2018 prompted the Government to 
propose constitutional amendments to institute a two-term limit for 
president and a two-round electoral system. In September 2017, the 
Parliament passed the amendments by 2/3 party-line majorities, without 
support from the opposition. The lack of a 4/5 majority to adopt the 
amendments directly made a popular referendum necessary, which has yet 
to take place.
    Following a mediation effort led by Ghanaian President Nana Akufo-
Addo and Guinean President Alpha Conde, ECOWAS has been pressing the 
Government and opposition to agree on constitutional reforms and pass 
them in the National Assembly by the necessary 4/5 majority, avoiding 
the need for a controversial referendum. However, opposition parties 
continue to insist constitutional changes must apply to the incumbent, 
barring President Faure from running for re-election in 2020. Togo is 
preparing to hold legislative elections in late 2018, and potentially 
hold local elections in 2019 for the first time in over 30 years. The 
disagreement between the opposition and the Government, and failure of 
the parties to reach an agreement, are potential obstacles to Togo's 
participatory governance.

    Question 6. What steps will you take--if confirmed--to support 
democracy in Togo? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will collaborate with the Government of 
Togo, political parties, civil society, and other diplomatic missions 
to promote political reforms, reinforce democratic institutions and 
expand political space, and strengthen electoral institutions and 
processes to promote fair and transparent elections. I will continue 
the ongoing constructive work with the Group of Five (G-5), consisting 
of the U.S., French, German, EU, and U.N. missions in Lome to encourage 
constitutional reforms and an inclusive political settlement.
    In 2015, Millennium Challenge Corporation (MCC) selected Togo as 
eligible to develop a Threshold Program to increase competition and 
private sector participation in the Information Communications 
Technology (ICT) services market and to improve land tenure and 
management. If confirmed, I will seek to leverage the Government's 
strong desire for an MCC Compact to encourage further reforms that 
improve transparency and reduce corruption.

    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. USAID does not have a mission in Togo; however, a handful 
of regionally- and centrally-managed program activities are present and 
focused largely on health. The USAID West Africa Regional Mission 
located in Accra, Ghana manages USAID regional program activities in 
Togo, including approximately $2 million a year for family planning and 
$1 million a year for HIV/AIDS programs. The Peace Corps established 
its presence in Togo in 1962, and currently has over 90 volunteers in 
the field working on projects in agriculture, education, and health.
    On April 3, the Millennium Challenge Corporation board approved a 
$35 million threshold program focused on reforms to the Information 
Communications Technology (ICT) sector and land tenure. The MCC, in 
collaboration with the Government of Togo, spent nearly two years 
analyzing Togo's main economic binding constraints and designing the 
threshold program. Togo became eligible for the threshold program in 
2015, and has maintained a passing scorecard for the last two years.
    In approving the program, MCC noted it will closely monitor 
citizens' rights to freedom of expression and association. In addition 
to leveraging the MCC compact, if confirmed, I will seek opportunities 
to secure funding to expand political space and strengthen democratic 
institutions, particularly focusing on electoral processes.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Togo? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Meeting with human rights, civil society and other non-
governmental organizations in the United States and with local human 
rights NGOs in Togo will be a priority of mine if confirmed as U.S. 
Ambassador to Togo. This is key to understanding the political and 
human rights' situation in any country, and a great privilege for those 
of us who serve oversees.
    Togo is on the path towards greater democracy. Togo is planning to 
hold local elections next year for the first time in 30 years. 
Constitutional reforms are on the table that would place term limits on 
the president and enact run-off voting. These steps in the right 
direction were made possible by the strong participation of domestic 
civil society groups. If confirmed, I will continue to push the 
Government to increase political space so that the people of Togo can 
make their voices heard and peacefully express dissent through the 
ballot box and through greater respect for fundamental freedoms.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with democratically-oriented 
opposition figures and parties. I will continue to support the ECOWAS-
facilitated political process to ensure implementation of the 
recommendations, and ensure that members of the opposition are 
consulted and are active participants in instituting reforms. The 
Public Affairs Section of Embassy Lome has also organized a number of 
workshops over the last two years to encourage greater participation by 
youth and women in political life. Some of the participants in these 
trainings will be candidates in the upcoming local elections. If 
confirmed, I will continue to advocate for the inclusivity of women, 
minorities and youth within political parties through such programs.

    Question 10. Will you and your embassy team actively engage with 
Togo on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Togo?

    Answer. Independent media are active and express a wide variety of 
views, many highly critical of the Government. However, the Government 
has at times restricted these rights. The law imposes penalties on 
journalists deemed to have committed ``serious errors'' as defined in 
the media code. Authorities sometimes attempt to influence the press 
through illicit means, for example, by giving ``year-end gifts'' to 
encourage positive media coverage.
    If confirmed, I will advocate for press freedoms and freedom of 
expression. The Togolese are receptive to our efforts. We are also 
engaged in public diplomacy programs that give young leaders a voice. 
Through various exchange programs like the Mandela Washington Fellows, 
we provide opportunities for them to visit the United States and bring 
back what they have learned in order to make Togo better, stronger, and 
more democratic. If confirmed, I will not compromise on these important 
American ideals. I will work hard, if confirmed, to encourage Togo to 
continue on this positive trajectory.

    Question 11. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, the Embassy team and I will continue to 
engage actively with civil society and government to counter 
disinformation and propaganda disseminated by foreign state or non-
state actors in Togo. The Embassy is already a leader in this regard, 
having launched a nation-wide campaign in 2018 to counter 
misinformation that has trained 150 journalists and social media 
influencers on how to detect and resist disinformation. The campaign 
has been so successful that a member of Togolese parliament has asked 
our trainers to give a class to the legislature.

    Question 12. Will you and your embassy teams actively engage with 
Togo on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Togo's constitution provides for the right of most workers 
to form and join unions and bargain collectively, prohibits forced 
labor, child labor, and discrimination in the workplace, and outlines a 
minimum wage, occupational safety and health, and hours of work 
protections. The Government has demonstrated on several occasions its 
willingness to negotiate with labor groups. If confirmed, I will 
advocate for freedom of assembly and independent trade unions and 
respect for labor rights provided under the law.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Togo, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Togo? What specifically will you commit to do to help LGBTI people in 
Togo?

    Answer. If confirmed, I will use my position to defend the human 
rights of all people in Togo, regardless of their sexual orientation or 
gender identity. Lesbian, gay, bisexual, transgender, and intersex 
(LGBTI) persons face societal discrimination in employment, housing, 
and access to education and health care. Existing antidiscrimination 
laws in Togo do not apply to LGBTI persons. Togolese law provides that 
a person convicted of engaging in consensual same-sex sexual activity 
may be sentenced to one to three years' imprisonment and fined one 
million to three million CFA francs ($1,701 to $5,102). Police have 
arrested individuals for engaging in consensual same-sex sexual 
activity. If confirmed, I will work with the Togolese law enforcement 
and government representatives to advocate for legal rights and safety 
for the LGBTI community.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Eric William Stromayer by Senator Benjamin L. Cardin

    Question 1 What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a junior officer I joined election monitoring teams 
overseas to promote democratic processes, and in more recent years, I 
have played a more senior policy-related role. As the Executive 
Director for the Africa Bureau (AF) from 2014-2017, I advocated in 
senior staff meetings for AF funding for election monitoring and human 
rights related programming in numerous places across the continent. 
With this support, the U.S. Mission in Abuja played a crucial role in 
the Nigerian elections which resulted in a peaceful transfer of power 
in 2015. As Deputy Chief of Mission and Charge d'Affaires a.i. 2008-
2011 in Madagascar, I advocated for a return to democratic norms 
following the March 2009 coup. With like-minded third country 
diplomats, I maintained pressure on the coup regime, which eventually 
was forced to return to democratic processes. In the past year as 
Acting Deputy Assistant Secretary for East Africa and Sudan and South 
Sudan, I was a key player in Washington's efforts to encourage a 
peaceful, credible outcome to the two rounds of the Kenyan elections 
and to bring peace to South Sudan to address the ongoing human rights 
tragedy unfolding there. My role included advocating for democratic and 
human rights with senior-level government and opposition leaders from 
Kenya and South Sudan.
    I led the Africa/Near East Asia/Oceans and International 
Environmental and Scientific Affairs delegation to meetings in Cairo, 
Khartoum, and Addis Ababa advocating for mutually advantageous ways to 
move forward with the eventual filling of the Grand Ethiopian 
Renaissance Dam (GERD) which, when operational, will potentially allow 
for enhanced standards of living and nutrition for tens of millions in 
all three of those countries. Our efforts contributed to calming what 
easily could have escalated into a serious international confrontation.

    Question 2. What are the most pressing human rights issues in Togo? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Togo? What do you hope to 
accomplish through these actions?

    Answer. The most pressing human rights issues that the United 
States is deeply concerned about in Togo are allegations of human 
rights violations, violence against civilians, and restrictions on 
freedom of expression and assembly, specifically surrounding the 
opposition-led protests in late 2017.
    If confirmed, the most important step I expect to take will be to 
call upon the Government of Togo to uphold its citizens' human rights, 
notably freedom of expression, freedom of peaceful assembly, and 
internet freedom, and to ensure that all those arrested during 
demonstrations are afforded the right to due process. If confirmed, I 
will seek to leverage the Government's strong desire for a Millennium 
Challenge Corporation (MCC) Compact to encourage further reforms that 
improve transparency and reduce corruption.
    Finally, if confirmed, I will work with the team at Embassy Lome 
and civil society and hope that these actions will encourage the 
Government of Togo to ensure the Togolese people have freedom of 
expression, freedom of peaceful assembly, and internet freedom.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Togo in advancing 
human rights, civil society and democracy in general?

    Answer. One significant obstacle to addressing human rights and 
democracy in Togo would be a breakdown or stalemate in the Economic 
Community of West Africa States (ECOWAS) mediation of the current 
political crisis. To help avoid that breakdown, I will, if confirmed, 
support this ECOWAS-mediated peace process to ensure implementation of 
the recommendations and to ensure that members of the opposition are 
consulted and are active participants in instituting these reforms. I 
will work with like-minded countries to continue to press the 
Government to make progress on reforms and advance democratic freedoms 
in Togo.
    Additionally, a major challenge I would face, if confirmed, would 
be the failure of the Government and opposition to arrive at a 
compromise acceptable to both sides. An opposition boycott of the 
Economic Community of West African States (ECOWAS)-endorsed 
parliamentary elections scheduled for December 20, 2018, for example, 
could increase the risk of violence on election day.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Togo? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. Yes. If confirmed as U.S. Ambassador to Togo, I will make 
meeting with human rights, civil society, and other non-governmental 
organizations in the United States, and with domestic and international 
human rights NGOs in Togo, a priority.
    Additionally, the United States maintains a good relationship with 
the Togolese military and police, who have been willing partners in key 
areas such as maritime security and peacekeeping. Our assistance to the 
Togolese armed forces is designed to develop the professionalism of its 
ranks. All security force participants in U.S. Government programs go 
through a Leahy vetting process to ensure participants have not 
committed gross human rights violations. Units with histories of human 
rights violations are not permitted to receive U.S. training or 
assistance. This also reinforces our message that human rights 
violations by security forces will not be tolerated. If confirmed, I 
will actively support our Embassy in gathering information to 
contribute to important reports such as the Human Rights Report and 
Trafficking in Persons Report to highlight areas of weakness and 
opportunities for further cooperation between the United States and 
Togo.

    Question 5. Will you and your embassy team actively engage with 
Togo to address cases of key political prisoners or persons otherwise 
unjustly targeted by Togo?

    Answer. If confirmed, I will continue the work Embassy Lome has 
begun, and will call on the Government of Togo to uphold its citizens' 
human rights, notably freedom of expression, freedom of peaceful 
assembly, and internet freedom, and to ensure that all those arrested 
during demonstrations are afforded the right to due process.

    Question 6. Will you engage with Togo on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage with Togo to emphasize the 
importance of rule of law, solid democratic institutions, and the role 
of civil society to encourage positive change.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Togo?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in Togo.

    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I plan to lead by example, ensuring regularly 
scheduled sessions stressing for all staff, American and local, the 
importance of full compliance with Equal Employment Opportunity (EEO) 
legislation and principles. I will ensure that we have well trained and 
active EEO counselors who conduct EEO trainings and carry out 
activities which highlight the importance of promoting inclusion and 
diversity for American and local employees alike. I will stress that 
mission leadership will not accept anything less. As part of routine 
mentoring, I will encourage staff from diverse backgrounds and 
underrepresented groups to seek out resources and my advice on 
performance and career planning, make sure that they are aware of 
``affinity groups'' within the State Department and elsewhere, and make 
clear my support for similar affinity groups at post if employees are 
interested in forming them.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will make clear that the EEO language in 
every employee's work requirements will be considered an integral part 
of successful job performance during the evaluation period. I will 
regularly seek feedback from employees on their perceptions of their 
workplace environment and correct issues that detract from an inclusive 
workplace. I will recognize those employees who demonstrate exceptional 
EEO leadership.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Togo 
specifically?

    Answer. Corruption remains a pervasive problem in Togo, especially 
for businesses. Often, ``donations'' or ``gratuities'' result in 
shorter delays for obtaining registrations, permits, and licenses, thus 
resulting in a competitive advantage for companies that are willing and 
able to engage in such practices. Government corruption exists among 
prison officials, police officers, and members of the judiciary. 
Corruption and inefficiency are endemic among police, and impunity is a 
problem. There are reports of police misusing arrest authority for 
personal gain.

    Question 13. What is your assessment of corruption trends in Togo 
and efforts to address and reduce it by that government?

    Answer. The law provides criminal penalties for conviction of 
corruption by officials, but the Government does not implement the law 
effectively, and officials frequently engage in corrupt practices with 
impunity. The National Commission for the Fight against Corruption and 
Economic Sabotage and other state entities, such as the Government 
Accounting Office and Finances Inspectorate, have limited resources to 
reduce levels of corruption and produce few results.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Togo?

    Answer. Efforts by the Government of Togo's Millennium Challenge 
Corporation (MCC) cell to make reforms and pass good governance 
indicators have had a positive effect on government transparency and 
reform. If confirmed, I will seek to build upon the positive momentum 
generated by MCC's approval of a $25 million Threshold Program to 
encourage further reforms that improve transparency and reduce 
corruption.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Dennis B. Hankins by Senator Robert Menendez

    Question 1. In February, I wrote a letter to then-Secretary Rex 
Tillerson to express my concern about ongoing instability in Mali, 
recommending the administration consult with Congress on a strategy for 
Mali that includes sustained, high-level diplomatic engagement with 
regional governments, signatory groups to the 2015 Agreement for Peace 
and Reconciliation in Mali, and civil society actors as part of a 
broader integrated plan on the Sahel-Maghreb:

   What is the status of the development of that strategy for Mali as 
        part of a Sahel/Maghreb strategy? Has Congress, to your 
        knowledge, been consulted on the development of such a 
        strategy? When will that consultation occur?

    Answer. I understand that Mali is part of a West Africa 
Counterterrorism Strategy, the development of which is currently 
underway. I agree on the need for sustained, high-level diplomatic 
engagement with regional governments, signatory groups to the 2015 
Algiers Accord for Peace and Reconciliation in Mali, and civil society 
actors. I share your concern about the ongoing instability in Mali. 
Part of the reason that terrorist groups have been gaining operational 
space is the unacceptably slow pace of implementation of the Accord. By 
not living up to their commitments, the signatories perpetuate 
instability that threatens the entire region. If confirmed, I plan to 
continue Embassy Bamako's efforts to press the parties to the Accord 
for full and speedy implementation of the Accord.

    Question 2. What specific actions has the United States taken to 
build civilian institutions to promote good governance and strengthen 
civilian oversight in the security sector? What have these actions 
achieved? If confirmed, what actions will you recommend be undertaken 
to further strengthen civilian institutions in Mali?

    Answer. The United States is committed to supporting Malian 
security sector reform efforts through an interagency, long-term effort 
focused on developing national level processes and institutions. Since 
2015, the Security Governance Initiative (SGI) has worked to strengthen 
civilian institutions and promote good governance and civilian 
oversight of the security sector. Specific areas of focus include 
aligning Ministry of Defense (MOD) resources to operational needs; 
National Police (NP) recruitment and human resource management; 
Ministry of Justice (MOJ) human resource development; and Inter-
ministerial defense and security planning and coordination. SGI has 
experienced varying both successes and degrees of success and 
challenges within each focus area. If confirmed, I will continue to 
promote good governance and improved civilian oversight of support 
these efforts to reform Mali's security sector as well as focus on 
transparent investigations of serious allegations against security 
forces and accountability for perpetrators.

    Question 3. What train-and-equip programs is the U.S. Government 
currently engaged in in Mali? In your view, should the resumption or 
continuance of such programs be tied to accountability for alleged 
human rights abuses committed by the military and/or other security 
forces?

    Answer. My understanding is that the United States continues to 
provide assistance to reform and professionalize Mali's security 
sector. Security forces must more effectively address the rapidly 
growing threat from violent extremists and bolster their legitimacy 
with the population. We have begun episodic training with select units 
deploying to the G5 Sahel Joint Force to assess their capabilities and 
improve core competencies. We also working to build the capacities of a 
Gendarmerie crisis response team, military intelligence, Counter-
Improvised Explosive Device capabilities, aviation, civil-military 
affairs, and limited International Military Education and Training. 
Human rights concerns should inform the scope of our security 
assistance policy. The United States is committed both to reforming the 
Malian security sector and to providing assistance to fill gaps in 
Malian security forces' operational capacity. All recipients of U.S. 
security assistance undergo Leahy vetting and, if confirmed, I will 
ensure that all provisions of U.S. security assistance and security 
cooperation activities continue to reinforce the importance of human 
rights, including transparent investigations and accountability for 
human rights violations.

    Question 4. What assistance, if any, should we be providing through 
the G-5 Sahel Joint Force as opposed to bilaterally, in your view?

    Answer. The United States is committed to supporting the G5 Sahel 
Joint Force as an African-led, African-owned effort to improve security 
in the Sahel. If confirmed, I will support continued strong bilateral 
assistance for the G5 Sahel Joint Force as the most effective way to 
build the capacity of G5 member states' forces.

    Question 5. What formal mechanisms exist for ensuring coordination 
with other donors funding security assistance activities? If confirmed, 
how can you ensure our activities are coordinated with those of other 
donors?

    Answer. My understanding is that the EU through its EU Training 
Mission and EU Capacity Mission is Mali's largest security assistance 
partner. Embassy Bamako remains in close consultation with the EU, its 
missions, and other donors to coordinate and de-conflict international 
security assistance. U.N. Security Council resolution 2391 (2017) 
acknowledged the EU as the coordinator for international voluntary 
contributions to the G5 Sahel Joint Force and the African Peace 
Facility as the financing mechanism to channel donor contributions. If 
confirmed, I will closely monitor security assistance coordination and 
work to achieve even closer cooperation among donors.

    Question 6. Mali is on the Tier 2 Watch List. What activities is 
the United States engaged in to assist Mali to investigate and 
prosecute trafficking offenses, and/or convict and punish traffickers? 
Have we provided any assistance to help train law enforcement on 
effective case investigation techniques? What have we further trained 
judges and prosecutors on Law 2012-023, Relating to the Combat against 
Trafficking in Persons and Similar Practices, as amended? What 
assistance or further assistance will you recommend we provided to Mali 
in these areas if confirmed as Ambassador?

    Answer. The Government of Mali (GOM) does not fully meet the 
minimum standards for the elimination of trafficking but is making 
significant efforts to do so. I understand that in 2016, the U.S. 
Department of State awarded a grant to the International Organization 
for Migration to train criminal justice practitioners on victim 
protection measures, to institutionalize a National Referral Mechanism 
and Standard Operating Procedures for referring victims of trafficking 
to services, to build local capacity to serve victims of trafficking by 
issuing sub-grants to local NGO Trafficking in Persons (TIP) service 
providers in Bamako and Gao, and to ensure effective implementation of 
the country's National Action Plan on TIP. I also understand that 
USAID, through a judicial strengthening program, is training paralegals 
on TIP so they can work with communities to raise awareness. This U.S. 
Government anti-trafficking funding complements other donor funding 
that has trained criminal justice practitioners on effective 
investigations and prosecutions. If confirmed, I would continue these 
efforts with Mali to build its capacity to address TIP issues and to 
urge the Government of Mali to ensure that it does not provide any 
material support to non-state actors who recruit and use child 
soldiers.

    Question 7. What key obstacles to implementing the 2015 Agreement 
for Peace and Reconciliation remain? What assistance are we providing 
to assist with implementation of the provisions of the agreement? What 
actions will you take if confirmed as Ambassador to foster 
implementation of the agreement?

    Answer. Key obstacles to implementing the 2015 Algiers Accord for 
Peace and Reconciliation in Mali include the signatories' lack of 
political will to make necessary compromises, low capacity and 
resources, and growing instability in Mali's north and center. I 
understand that the United States continues to play a very strong role 
in supporting the full implementation of the Algiers Accord for Peace 
and Reconciliation in Mali. The Embassy in Bamako takes a leading role 
in the International Mediation group by engaging with the parties to 
the Accord as well as the international community to resolve 
disagreements as they arise. The United States also works closely with 
regional and international partners to push for rapid and full 
implementation of the agreement. We have provided $1.15 billion in U.N. 
assessed contributions to MINUSMA and over $200 million in bilateral 
logistical support, training, and equipment to several countries 
providing troop contingents to MINUSMA since its inception. 
Furthermore, we continue to look for ways to reform and strengthen 
Mali's security forces to facilitate the reestablishment of state 
presence in ungoverned areas. Additionally, USAID governance programs 
have worked with the Ministries of Justice and Decentralization to 
develop GOM work plans that operationalize the steps involved in 
implementation of the accord. If confirmed, I will continue these 
robust efforts with a particular focus on pushing the parties to 
fulfill the measures called for by the U.N. Security Council in 
resolution 2423 regarding decentralization; disarmament, 
demobilization, and reintegration; and development.

    Question 8. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Mali?

    Answer. Yes. If confirmed I will look forward to fully briefing 
Members of Congress and/or their staff when I am in Washington for 
visits or consultations.

    Question 9. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have always viewed the promotion of human rights and 
democracy as an integral component of American diplomacy. Real 
development and security cannot be achieved if they are not accompanied 
by respect for human rights and a democratic process that respects the 
will of the people.
    In my current assignment as Ambassador to the Republic of Guinea, I 
have devoted a substantial amount of my time to the support of Guinea's 
young democratic process. Throughout 2017 and 2018, I harnessed Mission 
resources to help unblock the political blockages leading to Guinea's 
first local elections since establishing a democratic system in 2010, 
personally leading ``Election Roadshows'' to all of Guinea's regional 
capitals with senior members of the ruling coalition and opposition 
party. These efforts raised public confidence in the political process, 
fostered better personal relations between political rivals, and, 
ultimately, resulted in largely successful elections in February 2018. 
Those local elections have set the preconditions for national 
legislative elections in 2019 and a presidential election in 2020.
    As Deputy Chief of Mission in Khartoum, Sudan, I played a 
coordinating role in ensuring the successful completion of the 
Referendum on South Sudanese Independence in the northern parts of 
Sudan. Through daily meetings between State and USAID personnel working 
on the Referendum, and through contacts with partners and Sudanese 
Government officials, I was able to address small problems before they 
became big ones. The Referendum allowed the citizens of South Sudan to 
achieve their long-sought self-determination.
    As Deputy Chief of Mission in Nouakchott, Mauritania, I led efforts 
to counter the 2008 coup. Serving as Charge d'Affaires through most of 
the year following the coup, I played a very public role in denouncing 
the military seizure of power. My efforts focused on ensuring 
Mauritania could hold free and fair elections that were based on the 
rights of citizens to vote and take part in the conduct of public 
affairs. The Africa Bureau nominated me as a State Department 
``Champion of Democracy'' for my efforts.

    Question 10. What issues are the most pressing challenges to 
democracy or democratic development in Mali? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. While the recent presidential elections were a 
demonstration by the Malian voters of their commitment to democratic 
values, democracy in Mali is still developing. ECOWAS found these 
elections ``acceptable'' despite some irregularities and some limited 
violence in less-governed areas. Some of the challenges to Mali's 
democracy include the growing insecurity in Mali's north and center, 
transportation problems over vast and sparsely populated territory, and 
low capacity and resources. Prior to the recent presidential election, 
the Government of Mali used powers from the ongoing state of emergency 
to deny a permit for a June 2, 2018 protest and then cracked down on 
peaceful marchers. More than 30 peaceful protesters, including 
presidential candidates, were injured during the violence. Following 
that incident, however, the Government allowed about a dozen opposition 
protests to take place throughout the election period, all of which 
proceeded without incident. The United States was also concerned by 
reports that the Government disrupted the internet in the election 
period, closed a radio station because of a controversial program it 
aired, and arrested opposition campaign workers.

    Question 11. What steps will you take--if confirmed--to support 
democracy in Mali? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will work to ensure that Mali has free, 
fair, and transparent elections, and the rights of free speech, 
assembly, and the press are protected to encourage a healthy democratic 
dialogue. This includes not only programmatic assistance supporting 
elections and a strong civil society, but also the use of all the tools 
in our diplomacy toolkit to advance democratic values. I would make it 
clear that we expect open, unfettered public political discourse and 
credible democratic processes. While Mali suffers from very low 
capacity, large geographical challenges, and increasing instability, 
Mali must provide the opportunity for all Malians to engage in 
democratic expression, especially women and people from marginalized 
communities.

    Question 12. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will continue the United States' strong 
commitment to support democracy, human rights, and good governance in 
Mali. This includes supporting elections, working to address corruption 
that fuels instability and inhibits economic development, and reforming 
the security sector. I will continue to fully support international 
exchange visitors from Mali for a variety of programs including those 
focused on countering violent extremism, supporting entrepreneurship, 
and improving economic opportunities for U.S. businesses in Mali such 
as in the solar sector and others. USAID is supporting a two-year $6 
million project to promote women in public policy; establish a code of 
conduct for political parties; improve media coverage of the electoral 
process; strengthen civil society organizations; and advance effective 
voter education and voter mobilization strategies. It also has programs 
supporting public accountability, rule of law, access to justice, and 
strengthening civil society. We support a $1 million program to 
strengthen community resilience to violent extremism through more 
inclusive responses to security concerns by increasing mutual trust and 
cooperation between security services and citizens.

    Question 13. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Mali? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meet with human rights and other 
non-governmental organizations in the United States and with local 
human rights NGOs, and other members of civil society in Mali to ensure 
that human rights for all Malian are respected. I understand that our 
Embassy in Bamako is in close touch with NGOs that monitor the human 
rights situation in Mali. If confirmed, I would work to ensure local 
and international NGOs are able to report on troubling situations and 
demand that the Government conduct credible investigations, improve 
both civilian and military judicial processes, and hold accountable 
those responsible for human rights abuses and violations.

    Question 14. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I will commit to meet with democratically 
oriented political opposition figures and parties. I would also 
advocate for access and inclusivity for women, minorities, and youth 
within political parties. We have seen encouraging signs, as President 
Keita's most recent cabinet has met the 30 percent legal mandate for 
the inclusion of women. This is a first step but there much work 
remains, especially with regard to the inclusion for the growing youth 
population. I would call for meaningful efforts to allow younger people 
to express freely their political opinions, register, and vote; for 
women to play a much greater role in elections, political affairs, and 
the peace process; and for the inclusion of voices from marginalized 
groups.

    Question 15. Will you and your embassy team actively engage with 
Mali on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Mali?

    Answer. If confirmed, I will actively engage with Mali on freedom 
of the press and address any government efforts designed to control or 
undermine press freedom. I would also commit to meeting regularly with 
independent, local press in Mali.

    Question 16. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will be vigilant in monitoring 
disinformation and propaganda disseminated by foreign state or non-
state actors and will actively engage all appropriate actors if such 
problems come to light.

    Question 17. Will you and your embassy teams actively engage with 
Mali on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will actively engage with Mali on the right 
of labor groups to organize, including for independent trade unions. I 
understand that Mali does have active, independent labor unions, 
especially in the public sector, as demonstrated by the currently 
ongoing Magistrates Union strike.

    Question 18. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Mali, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and intersex (LGBTI) people face in 
Mali? What specifically will you commit to do to help LGBTI people in 
Mali?

    Answer. If confirmed, I will commit to using my position to defend 
the human rights and dignity of all people in Mali, no matter their 
sexual orientation, gender identity, or transgender status. While I 
understand that homosexuality in Mali is not per se illegal, members of 
the LGBTI population face severe legal and social hurdles. If 
confirmed, I will stand for the dignity of all people, regardless of 
sexual orientation, gender or transgender status. I would communicate a 
strong public message that the United States supports human rights, 
tolerance and respect for everyone, including members of the LGBTI 
community.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Dennis B. Hankins by Senator Benjamin L. Cardin

    Question 1. In recent years we have seen a breakdown in 
implementation of Mali's 2015 peace process coupled with ``amplified 
intercommunal violence'' in the northern and central parts of the 
country. However, MINUSMA, France's security operations, and the G5 
Sahel force are largely focused on counter-terrorism in the North.

   How can MINUSMA's mandate and the United States' engagement be 
        adapted to the current and evolving security situation in 
        central Mali?

    Answer. MINUSMA, as with other peacekeeping missions in the U.N. 
system, is tasked with supporting a peace process. MINUSMA's core focus 
is supporting the signatories' implementation of the Algiers Accord for 
Peace and Reconciliation in Mali. That peace agreement focuses on the 
conflict in the north and certain armed groups' desire for greater 
autonomy. MINSUMA is not a counterterrorism force. However, full and 
rapid implementation of the Accord will address many of the grievances 
and instability that drive the conflict in the center and would allow 
the Government of Mali to address violent extremism and inter-communal 
violence. For this year's mandate, the U.S. worked to place specific 
benchmarks within UNSC resolution 2423 (2018) to apply more pressure on 
the signatory parties to implement the Accord. Additionally, it 
provided the Force Commander more flexibility to move forces into the 
center of the country. We will continue to closely monitor and assess 
the implementation of and progress on the benchmarks to determine how 
to best adapt next year's mandate to bring peace and stability 
throughout all of Mali.

    Question 2. What in your opinion is the appropriate political 
mechanism that might lead to peaceful settlement in central Mali?

    Answer. The establishment of a positive state presence in Mali's 
center will be critical to promoting greater stability, decreased 
conflict, and greater respect for human rights. Lack of government 
resources, trustworthy security services, development, protection of 
human rights, and opportunities for the growing youth population all 
contribute to the growing instability. All people in Mali should have 
security, justice, protection of human rights, and meaningful economic 
opportunities. Long-term resolution will require improved trust of 
security forces, accountability, and development in the center.

    Question 3. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have always viewed the promotion of human rights and 
democracy as an integral component of American diplomacy. Real 
development and security cannot be achieved if they are not accompanied 
by respect for human rights and a democratic process that respects the 
will of the people.
    In my current assignment as Ambassador to the Republic of Guinea, I 
have devoted a substantial amount of my time to the support of Guinea's 
young democratic process. Throughout 2017 and 2018, I harnessed Mission 
resources to help unblock the political blockages leading to Guinea's 
first local elections since establishing a democratic system in 2010, 
personally leading ``Election Roadshows'' to all of Guinea's regional 
capitals with senior members of the ruling coalition and opposition 
party. These efforts raised public confidence in the political process, 
fostered better personal relations between political rivals, and, 
ultimately, resulted in largely successful elections in February 2018. 
Those local elections have set the preconditions for national 
legislative elections in 2019 and a presidential election in 2020.
    As Deputy Chief of Mission in Khartoum, Sudan, I played a 
coordinating role in ensuring the successful completion of the 
Referendum on South Sudanese Independence in the northern parts of 
Sudan. Through daily meetings between State and USAID personnel working 
on the Referendum, and through contacts with partners and Sudanese 
Government officials, I was able to address small problems before they 
became big ones. The Referendum allowed the citizens of South Sudan to 
achieve their long-sought self-determination.
    As Deputy Chief of Mission in Nouakchott, Mauritania, I led efforts 
to counter the 2008 coup. Serving as Charge d'Affaires through most of 
the year following the coup, I played a very public role in denouncing 
the military seizure of power. My efforts focused on ensuring 
Mauritania could hold free and fair elections that were based on the 
rights of citizens to vote and take part in the conduct of public 
affairs. The Africa Bureau nominated me as a State Department 
``Champion of Democracy'' for my efforts.

    Question 4. What are the most pressing human rights issues in Mali? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Mali? What do you hope to 
accomplish through these actions?

    Answer. Mali faces many serious human rights issues. There is 
ineffective civilian control over security forces and a lack of 
accountability for numerous allegations of serious human rights 
violations and abuses by security forces, non-state armed groups, and 
terrorists. Security forces have reportedly committed extrajudicial 
killings; effected disappearances; and engaged in torture and other 
cruel, inhuman, or degrading treatment or punishment. Armed groups have 
committed significant human rights abuses, including summary 
executions, torture, and unlawful use of child soldiers. Violent 
extremist groups commit frequent human rights abuses and continue to 
kill civilians and military forces including peacekeepers with 
impunity. Over the past year, the Government of Mali (GOM) has 
increased restrictions on freedoms of association and expression, 
including for the press. The GOM also disrupted access to the Internet 
and social media surrounding the recent presidential elections. 
Trafficking in persons and exploitative labor, including child labor, 
continue to be concerns.
    If confirmed, I intend to draw on my experience throughout my 
career in addressing human rights and democracy issues and, working 
together with international partners and civil society, press the 
Government to improve human rights and democratic conditions in Mali. 
Our Embassy in Bamako remains very engaged on these extremely important 
issues. I will focus on addressing corruption; reforming security 
institutions and strengthening civilian oversight; calling for credible 
investigations into human rights allegations; pressing for 
accountability; and working for free expression and free, fair, 
transparent and peaceful elections. If confirmed, I will strengthen 
efforts already in place and will look for any additional opportunities 
to promote human rights and democracy in Mali.

    Question 5. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mali in advancing 
human rights, civil society and democracy in general?

    Answer. In Mali, obstacles to addressing these specific human 
rights issues include corruption, lack of resources, weak institutional 
capacity within the Government, and insufficient civilian control over 
security forces.
    One important factor in advancing human rights, civil society, and 
democracy in Mali is a shift in the culture of corruption and impunity 
that currently prevails. Many Malians have low expectations for their 
government. Many officials engage in corruption and lack a commitment 
to public service. Changing minds will not be easy or fast, but will be 
necessary to address the root causes of many of Mali's problems.

    Question 6. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mali? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. If confirmed, I will commit to meeting with human rights, 
civil society and other non-governmental organizations in the United 
States and with local human rights NGOs in Mali.
    Additionally, if confirmed, I will work to ensure that U.S. 
security assistance is provided consistent with the Leahy Law and that 
our security cooperation activities reinforce human rights. If 
confirmed, I will ensure that our vetting continues to be 
comprehensive, thorough, and in full compliance with the Leahy Law, and 
that those who violate human rights are restricted from receiving any 
assistance until the GOM takes effective steps to bring the responsible 
members of the security forces unit to justice. I will strongly urge 
the GOM to hold those responsible for human rights violations and 
abuses accountable for their actions.

    Question 7. Will you and your embassy team actively engage with 
Guinea to address cases of key political prisoners or persons otherwise 
unjustly targeted by Guinea?

    Answer. If confirmed, I will actively engage with Mali to address 
cases of key prisoners of conscience or persons otherwise unjustly 
targeted by Mali.

    Question 8. Will you engage with Mali on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage with Mali on matters of human 
rights, including civil rights and governance, as part of my role 
leading U.S. Embassy Bamako.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Mali?

    Answer. Neither I, nor my spouse nor our dependent children are 
invested in companies that have a presence in Mali. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest.

    Question 12. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will help ensure that all staff understand 
the importance of full compliance with Equal Employment Opportunity 
(EEO) principles and that we have well-trained and active EEO 
counselors who conduct EEO trainings and carry out activities which 
highlight the importance of promoting inclusion and diversity for 
American and local employees alike. As part of routine mentoring, I 
will encourage staff from diverse backgrounds and underrepresented 
groups to seek out resources and advice on performance and career 
planning, make sure that they are aware of Employee Affinity Groups 
within the State Department, and make clear my support for 
participation in employee organizations at post.

    Question 13. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will make clear that the EEO language in an 
employee's work requirements will be considered an integral part of 
successful job performance. I will regularly seek feedback from 
employees on their perceptions of their workplace environment and 
correct issues which detract from an inclusive workplace. I will 
recognize those employees who demonstrate exceptional EEO leadership.

    Question 14. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Mali 
specifically?

    Answer. Corruption has a strong negative impact on democratic 
governance and the rule of law. Corruption is an obstacle for foreign 
investment and economic development in Mali. It plays a role in 
facilitating trafficking and terrorist financing. It interferes with 
the delivery of state services such that many Malians have severely 
diminished expectations for the role of the state. This makes it easier 
for violent extremist groups to fill the void by providing quasi-state 
services. Public perceptions of corruption and dissatisfaction with the 
state are factors driving recruitment by violent extremists. Corruption 
in all sectors of the administration is widespread, and the lack of 
accountability exacerbates the problem.

    Question 15. What is your assessment of corruption trends in Mali 
and efforts to address and reduce it by that government?

    Answer. Corruption is a chronic problem in Mali, and radical 
changes are unlikely to occur overnight. Malian law provides criminal 
penalties for corruption by officials, but the Government has not 
implemented the law effectively, and officials frequently engage in 
corrupt practices with impunity. To improve governance and 
accountability, President Keita has advocated for a ``cour de comptes'' 
(special public financial oversight entity akin to the U.S. Government 
Accountability Office), noting that Mali is the only country in ECOWAS 
that does not have one. Mali already has a Central Office for Combating 
Illicit Enrichment (OCLEI), which does not appear to have made a 
significant impact on the problem.

    Question 16. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Mali?

    Answer. The United States is working to address the entrenched 
problem of corruption in Mali and, if confirmed, I will be a strong 
advocate for good governance and anti-corruption efforts. I will 
continue and strengthen our programming in these areas. Our assistance 
works to improve civil society's capacity for oversight functions, and 
strengthen Malian Government institutions to reduce administrative 
corruption in the justice sector and at the sub-national level. Our 
Mali Justice Project works to increase the Ministry of Justice's 
institutional capacity, to promote good governance and anti-corruption 
efforts. Our Sub-National Governance Program works to generate 
responsive, accountable service delivery. Our Civic Engagement Program 
aims to promote effective civic engagement for improved public 
accountability. In the security sector, the Security Governance 
Initiative focuses on fiscal and human resource management in an effort 
to reduce corruption and promote effective service delivery. I will 
support all these efforts, if confirmed.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Dennis B. Hankins by Senator Cory A. Booker

    Question 1. The U.N. Security Council in June gave the parties to 
the 2015 peace agreement six months to implement the 2015 peace 
roadmap. The text calls for the beginning of the Disarmament, 
Demobilization and Reintegration (DDR) process, which sets a basis for 
demobilizing or integrating fighters into the Malian army or police. So 
far, progress has been disappointing.

   What can be done to more quickly bring into force the faltering 
        peace accords with rebels as Islamist militants keep up actions 
        to destabilize Mali and the region?

    Answer. The peace process appeared to lose momentum during the 
recent presidential elections, but there is now an opportunity to 
reinvigorate the peace process. The United States works closely with 
regional and international partners to push for rapid and full 
implementation of the Algiers Accord for Peace and Reconciliation in 
Mali. Our Embassy in Bamako is particularly active as an observer to 
the International Mediation.
    If confirmed, I will continue the United States' robust efforts to 
encourage the parties to fulfill the measures called for by the U.N. 
Security Council in resolution 2423. That resolution urges the parties 
to take action on: decentralization of state services, setting up 
interim authorities in northern Mali, integration of at least 1,000 
members of signatory armed groups into Malian security forces, joint 
patrols by mixed units from the signatory parties, establishment of the 
Northern Development Zone, and meaningful participation of women in 
implementation of the peace process. These actions not only start the 
process of reconciliation in the north, they also will provide greater 
stability, facilitating efforts to address the growing terrorist 
threats in the country.

    Question 2. The United Nations has deployed a peacekeeping mission 
of roughly 12,000 troops in Mali while the French, Americans, British 
and others have also sent troops or military support, and countries in 
the region have deployed a 5,000-man support force. But the solutions 
to Mali's problems cannot be solved with guns--they depend on 
inclusive, fair and transparent governance. Unfortunately, the 
governance problems in the north also exist throughout the country, 
providing opportunities for extremists to expand their influence.

   The 2015 peace agreement provided for some degree of autonomy in 
        the North. Should we be supporting decentralization efforts in 
        the rest of the country? If so, how?
   How can we help the Malians address governance challenges 
        throughout the country so that grievances elsewhere don't fuel 
        conflict?

    Answer. The Algiers Accord for Peace and Reconciliation in Mali, 
while focusing on the conflict in Mali's north, calls for regulatory, 
legislative, and constitutional measures to decentralize power to all 
regions in the country. Measures include the establishment of elected 
regional assemblies, elected local councils and mayors, and a second 
chamber of Parliament. The United States supports the Algiers Accord, 
particularly provisions giving greater power to people at the regional 
and local levels and helping establish positive state presence 
throughout the country.
    Poor governance is a critical factor in driving much of the 
conflict in Mali and remains an obstacle for economic development. Our 
democracy, human rights, and governance activities in Mali improve 
civil society's capacity for oversight functions and strengthen Malian 
Government systems to reduce administrative corruption in the justice 
and public finance sectors The United States also focuses on reforming 
governance in the security sector through the Security Governance 
Initiative. While there are no easy solutions, if confirmed, I will 
continue these efforts.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Dennis Walter Hearne by Senator Robert Menendez

    Question 1. Mozambique has set general elections for October 2019: 
What will be the biggest challenge to the administration of elections? 
As it stands, are political conditions conducive to credible elections? 
What program and activities is the United States engaged in in the 
areas of democracy and human rights in Mozambique, and which of those 
activities is aimed specifically at supporting credible elections? What 
specific actions will you take, if confirmed, to support credible 
elections in Mozambique?

    Answer. Both the nationwide municipal elections in October 2018 and 
the general elections in October 2019 will be the first held within the 
framework of the decentralization reforms agreed to as part of the 
peace process between the ruling and main opposition parties. In 2019, 
voters will for the first time ever elect--through a party list 
system--provincial governors, who were previously appointed by the 
president. It will also be the first general election since the August 
2018 agreement governing the disarmament, demobilization, and 
reintegration of Renamo combatants went into effect.
    As a result, the importance of free, fair, and credible elections 
that all parties can accept will be higher than ever, and international 
and domestic observers will be watching them closely, which should 
encourage transparency. The U.S. Government provides development 
assistance to strengthen democracy, human rights, and governance 
through a variety of activities and programs to attain an inclusive and 
transparent government accountable to its constitution and its citizens 
and to support civil society's engagement in electoral transparency and 
related issues. Some projects support activities to increase women's 
participation in electoral processes and train stakeholders on conflict 
resolution and mitigation of electoral violence. If confirmed, I would 
expect to mount a major U.S. Embassy election observation effort in 
coordination with other foreign missions for the general election in 
2019, as the embassy is doing for the 2018 municipal elections. I would 
also continue the embassy's regular engagement with Mozambique's 
National Elections Commission, political parties, and election-related 
civil society organizations, who are working hard to increase 
transparency and efficiency in the electoral system.

    Question 2. Little is known about the origins and aims of the 
terrorist group known as Ansar al Sunna:How large is the group, and 
what motives drive recruitment? Are members all of Mozambican origin? 
Are there any links to major transnational terrorist groups? What 
should the U.S. be doing to help enhance the capability of national 
security forces to prevent and respond to attacks by the group and to 
prosecute members of the group? What types of countering violent 
extremism programs and activities are the State Department and USAID 
undertaking in Mozambique? If confirmed, what actions will you take as 
Ambassador to help Mozambique's efforts to counter the growing 
terrorist threat?

    Answer. If confirmed, I will work to prioritize assistance to help 
Mozambique counter this growing threat. The United States has been 
engaged on this issue since the first attacks in October 2017, carried 
out by primarily homegrown Islamic extremists. Growing access to the 
internet among impoverished, disenfranchised youth is facilitating 
self-radicalization, while Mozambican law enforcement remains ill-
equipped to deal with the complex challenges of extremism. Some 
foreigners have been arrested in conjunction with the attacks. We are 
closely monitoring reports that the group may have links to 
international terrorist organizations. The pace, scale, and geographic 
reach of the attacks suggest the group numbers no more than a few 
hundred members.
    Two interagency teams have traveled to post to date to conduct 
assessments and develop specific U.S. Government programming 
recommendations to assist the Mozambican Government. At the request of 
the Mozambican Government, the United States increased Mozambique's 
participation in regional counter-terrorism initiatives and training 
and added Mozambique as a member of the Partnership for Regional East 
Africa Counterterrorism. The United States has also initiated support 
to civil society organizations seeking to address the root causes of 
extremism among young people and to improve dialogue with local 
government and security forces. If confirmed, I will use all 
appropriate and available U.S. Government resources to help our 
Mozambican partners better understand and counter this threat.

    Question 3. The 2018 State Department Trafficking in Persons Report 
classifies Mozambique as Tier Two: What activities and programs does 
the U.S. Government engage in aimed at building the capacity of the 
labor inspectorate and the Women and Children's Victim Assistance Units 
to investigate trafficking cases? What support have we provided to 
train officials to investigate and prosecute those facilitating child 
sex trafficking or adult forced prostitution? If confirmed, what 
specific actions will you recommend we support to help Mozambique 
improve its efforts to stop trafficking in persons?

    Answer. If confirmed, I will fully support efforts to build the 
capacity of the Mozambican Government to monitor and combat trafficking 
in persons (TIP). The Government of the Republic of Mozambique improved 
the management of human trafficking cases in 2017, resulting in its 
removal from the Department of State's TIP Watchlist, which it had been 
on for two consecutive years. The U.S. Embassy in Maputo engages 
regularly with the Attorney General, who serves as the key focal point 
and coordinator on trafficking issues, and Mozambique is close to 
approving a long-awaited National Action Plan and the National Referral 
Mechanism for countering human trafficking. The embassy recently sent 
two Mozambican prosecutors to the United States for an American Bar 
Association Rule of Law Institute exchange on anti-TIP issues, 
resulting in action plans for improving investigation and prosecution 
of all child trafficking crimes, and the embassy will send another 
prosecutor to the United States on a TIP-related International Visitors 
Leadership Program next year.
    A two-year program funded by the Department of State aimed at 
building the capacity of provincial-level coordinating bodies to combat 
TIP resulted in improved capacity of immigration officials to identify 
TIP victims and the upgrading of three shelters for unaccompanied 
minors turned back at Mozambique's borders or repatriated, mostly from 
South Africa. The Department of State will also invite Mozambican 
Government officials to participate in a Human Trafficking and Child 
Exploitation Course at the International Law Enforcement Academy in 
Gaborone, Botswana. If confirmed, I will encourage Mozambique's 
continued participation in such training and other initiatives to help 
Mozambique continue its efforts to stop trafficking in persons.

    Question 4. In 2016, the Government of Mozambique reported over $2 
billion in off-budget state borrowing to the International Monetary 
Fund (IMF), breaching the Government's obligations under the IMF's 
concessional lending program. The loans were partly derived from bonds 
issued by Russian banks, and were kept secret on national security 
grounds. Though the World Bank and demanded an audit, the Government 
restricted the auditor's access to data related to the loans. The audit 
found that about 10 percent of the loans went to bank and other fees, 
but could not fully document disposition of the funds:

   Do the IMF and World Bank believe there is undisclosed debt in 
        addition to the $2 billion reported in 2016? Are we aware of 
        any debt the Government might owe to China? If so, what is the 
        amount of debt owed? If confirmed, what steps will you 
        recommend we take working through the IMF and World Bank to 
        ensure that Mozambique is transparent about the amount of debt 
        it owes to other creditors and other countries?

    Answer. We have seen no indication to date of additional 
undisclosed debt, but we are obviously watching the situation closely 
and in regular contact with the relevant authorities. We have seen 
unofficial reports that Mozambique may owe the Chinese up to $2 
billion, primarily for Chinese-financed infrastructure projects, 
including a $725 million bridge in Maputo, roads, airports, and other 
projects, but China (or Chinese banks) was not among the lenders in the 
$2 billion illicit debt scandal. The United States has supported IMF 
demands for additional information and for reform and further 
transparency in the wake of the hidden debt scandal, and, if confirmed, 
I will continue with this policy and encourage all other major donors 
to do the same.
    The United States consistently highlights to Mozambican officials 
the hazards of taking on unsustainable levels of debt, including debt 
acquired through Chinese-financed projects, and I would continue 
highlighting this issue, if confirmed.

    Question 5. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Mozambique?

    Answer. Yes. If confirmed, I would look forward to briefing members 
of Congress and/or their staff when I am in Washington for official 
consultations during my tenure as Ambassador to Mozambique.

    Question 6. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have worked to promote democracy and human rights 
throughout my 33-year Foreign Service career, and I will continue to do 
so as Ambassador, if confirmed. While serving in the Balkans during the 
war in the early 1990s, I helped establish and operate the Bosnian 
refugee program for the United States, which eventually resettled in 
safety over 130,000 victims of war crimes, ethnic cleansing, and 
persecution. I established and operated other corollary programs for 
medical and humanitarian evacuation and rescue of Bosnians and 
Croatians from war zones. During the war, I reported on major human 
rights issues, notably in the aftermath of Operation Storm, the major 
Croatian operation into the Serb Krajina. After the war, I worked for 
two years with the International Criminal Tribunal for the Former 
Yugoslavia (ICTY) in The Hague. At the ICTY, I participated directly in 
the investigations and preparation of indictments for multiple war 
crimes suspects. Moreover, I helped establish and then was the 
principal operational liaison for a dedicated special operations 
activity, which forcibly detained in former Yugoslavia and transferred 
to The Hague for trial dozens of persons indicted for war crimes.
    In Afghanistan, at both the combat level while serving as an 
advisor with U.S. airborne infantry units in the eastern provinces, and 
later on the senior policy level as Deputy Chief of Mission, I 
persistently emphasized the necessity of genuine democratic progress, 
improved governance and respect for human rights in all aspects of our 
national effort and strategy.

    Question 7. What issues are the most pressing challenges to 
democracy or democratic development in Mozambique? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Strengthening democratic governance is essential to 
building a more peaceful and prosperous Mozambique. Mozambique's post-
civil war democratic development was hampered by episodic armed 
conflict between the Frelimo-led Government and the main opposition 
party Renamo for more than two decades. A recently concluded peace 
agreement that foresees the demilitarization of Mozambique's main 
opposition party and a decentralization process creating elected local, 
district, and provincial governments provides a unique opportunity for 
the United States to help Mozambique consolidate its democracy and 
achieve durable peace.
    If confirmed, promoting democracy and respect for human rights will 
be among my highest priorities as Ambassador. I commit to continuing 
the work of my predecessor and his team to support the peace process 
and advocate for political inclusion and the rule of law for long-term 
peace and stability in Mozambique.

    Question 8. What steps will you take--if confirmed--to support 
democracy in Mozambique? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The recently achieved peace agreement presents a 
particularly significant opportunity for U.S. engagement to support 
democracy in Mozambique. Sustained U.S. support in strengthening 
democratic norms, processes, and institutions as the country pursues 
decentralization and in implementing the demilitarization, 
demobilization, and reintegration process envisioned for the country's 
peace agreement will be critical to overcoming decades of political 
conflict and ensuring a durable peace.
    Continuing my predecessor's strong support for the peace process 
will be among my highest priorities, if confirmed. Supporting the two 
tracks (decentralization and demilitarization) of the nascent and 
fragile peace agreement, particularly as it weathers the critical test 
of national elections (president, legislative, and provincial) in 
October 2019 will unquestionably be a major challenge not just for the 
United States but for all of Mozambique's international partners. If 
confirmed, I will fully support these and other efforts to ensure a 
democratic, peaceful, and prosperous Mozambique.

    Question 9. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Strengthening democracy and governance is essential to 
building a more peaceful and prosperous Mozambique. Mozambique's post-
war economic gains have not been evenly distributed, thus extreme 
poverty remains pervasive. Political inclusion, respect for human 
rights, and the rule of law remain weak, undermining the country's 
long-term prospects for peace and stability. The continued convergence 
between the state and the ruling party has constrained democratic 
debate and led to endemic corruption at all levels of government. Local 
civilian capacity to press for reforms will require continued donor 
technical assistance and funding.
    If confirmed, I would work with the embassy team, using a whole-of-
government approach, to promote accountable, transparent, and effective 
democratic governance across all sectors. I will ensure the effective 
and efficient use of State Department and USAID resources to strengthen 
democracy, human rights, and governance through activities that educate 
magistrates and justice officials on anti-corruption laws, train 
journalists, improve the organizational capacities of civil society to 
hold their government accountable, encourage greater political 
participation among women and youth, and aid election observation 
efforts. I would also utilize the full arsenal of public diplomacy 
tools, including the strategic use of speaker and grant programs, to 
support democracy, transparency, and good governance.

    Question 10. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Mozambique? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, I will as I have throughout my career. If confirmed, I 
will urge the Mozambican Government to increase political space for all 
stakeholders and seek ways to strengthen judicial independence. I will 
also work to increase capacity to uphold Mozambique's constitution and 
laws, which provide for an independent and impartial judiciary and 
enshrine certain rights and freedoms. I will also continue the 
mission's work to provide institutional and individual support for 
democratic rights through civil society and human rights organizations 
that advocate for legal and regulatory reforms.

    Question 11. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes. If confirmed, I commit to meet with democratically 
oriented political opposition figures and parties and will advocate for 
access and inclusivity for women, minorities, and youth in the 
political process. I would seek to continue the efforts of our current 
Ambassador in Mozambique and his team, which include regularly meeting 
with women and youth leaders to discuss political, economic, social, 
and health issues. I would also continue embassy efforts that focus on 
women's political, economic, and social participation. These include 
entrepreneurship and mentoring programs and support to local NGOs to 
promote increased female political participation, change the 
stereotypes and cultural norms that negatively affect women in society, 
and promote legislation to prevent and combat violence against women.
    If confirmed, I would lead embassy efforts to support the 
decentralization piece of the peace agreement with programming aimed at 
the efficient functioning of the newly decentralized provincial and 
local governments, which could serve as an important element in 
ensuring democratic development and increased political competition.

    Question 12. Will you and your embassy team actively engage with 
Mozambique on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Mozambique?

    Answer. Yes, if confirmed, my embassy team and I will actively 
engage on a regular basis with government-owned and independent media, 
promote freedom of the press, and address any attempts to undermine or 
limit press freedom or control media content. I will also commit to use 
all methods at our disposal to build professional capacity within media 
institutions. Mozambique currently has a number of independent print 
and electronic media outlets, which regularly carry reporting and 
editorials that could be viewed as critical of the Government, 
government officials, and the ruling part on a host of issues without 
reprisal.
    Despite many positive developments, I remain concerned that those 
responsible for murders or physical attacks on prominent journalists 
and political commentators have not been identified and brought to 
justice. Allowing those responsible for such high-profile crimes to 
escape with impunity will have a negative impact on press freedom in 
Mozambique. If confirmed, I will advocate for an end to violence 
against journalists, and would hope to work closely with the Mozambican 
Government to urge successful investigations and prosecutions in these 
outstanding cases and to ensure that press freedom is respected.

    Question 13. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. Misinformation and disinformation challenges have 
arisen in Mozambique. If confirmed, I will continue our mission's 
support for digital and information security and work with government 
and civil society partners to respond promptly in correcting the record 
when necessary.

    Question 14. Will you and your embassy teams actively engage with 
Mozambique on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, if confirmed, we will actively engage on the right of 
labor groups to organize, and meet with trade union leaders on a 
regular basis. It is my understanding that the Mozambican constitution 
and laws provide for freedom of peaceful assembly and association and 
for workers, with limited exceptions, to form and join independent 
trade unions, conduct legal strikes, and bargain collectively, and 
these rights are generally respected. This is important as labor unions 
have historically played a key role in advocating for broader 
fundamental human rights in addition to worker rights in Mozambique and 
in other countries.

    Question 15. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Mozambique, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Mozambique?What specifically will you commit to do to help 
LGBTI people in Mozambique?

    Answer. Yes. I commit to using my position, if confirmed, to defend 
the human rights and dignity of all people in Mozambique, regardless of 
their sexual orientation or gender identity. In Mozambique, there is 
societal discrimination based on sexual orientation and gender 
identity. Antidiscrimination laws in Mozambique protect LGBTI persons 
only from employment discrimination. No hate-crime laws or other 
criminal justice mechanisms exist to aid in the prosecution of bias-
motivated crimes against LGBTI persons. Since 2008, the Government has 
failed to take action on Mozambique's only LGBTI civil society 
organization, LAMBDA's, request to register locally. Discrimination in 
public medical facilities has been reported. Medical staff sometimes 
chastise LGBTI individuals for their sexual orientation when they seek 
treatment.
    If confirmed, I will promote the rights of LGBTI persons and all 
people of Mozambique, and will continue to report on developments on 
this issue in post's annual human rights report.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Dennis Walter Hearne by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have worked to promote democracy and human rights 
throughout my 33-year Foreign Service career, and I will continue to do 
so as Ambassador, if confirmed. While serving in the Balkans during the 
war in the early 1990s, I helped establish and operate the Bosnian 
refugee program for the United States, which eventually resettled in 
safety over 130,000 victims of war crimes, ethnic cleansing, and 
persecution. I established and operated other corollary programs for 
medical and humanitarian evacuation and rescue of Bosnians and 
Croatians from war zones. During the war, I reported on major human 
rights issues, notably in the aftermath of Operation Storm, the major 
Croatian operation into the Serb Krajina. After the war, I worked for 
two years with the International Criminal Tribunal for the Former 
Yugoslavia (ICTY) in The Hague. At the ICTY, I participated directly in 
the investigations and preparation of indictments for multiple war 
crimes suspects. Moreover, I helped establish and then was the 
principal operational liaison for a dedicated special operations 
activity, which forcibly detained in former Yugoslavia and transferred 
to The Hague for trial dozens of persons indicted for war crimes.
    In Afghanistan, at both the combat level while serving as an 
advisor with U.S. airborne infantry units in the eastern provinces, and 
later on the senior policy level as Deputy Chief of Mission, I 
persistently emphasized the necessity of genuine democratic progress, 
improved governance and respect for human rights in all aspects of our 
national effort and strategy.

    Question 2. What are the most pressing human rights issues in 
Mozambique? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Mozambique? What do 
you hope to accomplish through these actions?

    Answer. The two most pressing human rights concerns in Mozambique 
are arbitrary arrest and detention and the lack of investigative 
follow-up on unresolved crimes against prominent opposition 
politicians, their supporters, and journalists, which calls into 
question police commitment to solving politically motivated crimes. I 
understand the Attorney General's Office in Mozambique has taken steps 
to review cases of arbitrary arrest and detention, which has led to the 
release of some who were detained contrary to existing law and 
procedures, but not all cases have been resolved.
    The Government and police leadership have publicly expressed 
commitment to thorough investigations in many of the unresolved cases 
of crimes against prominent opposition politicians, their supporters, 
and journalists. However, these commitments have not yet resulted in 
identification, arrest, or prosecution of those responsible.
    Specifically, if confirmed, I hope to work closely with the 
Mozambican Government and civil society to urge thorough and successful 
investigations and prosecutions in the outstanding cases against 
prominent opposition politicians, their supporters, and journalists.
    More generally, if confirmed, I would work with the embassy team, 
using a whole-of-government approach, to promote accountable, 
transparent, and effective democratic governance across all sectors to 
build a more peaceful and prosperous Mozambique. This would include 
utilizing the full arsenal of public diplomacy tools, including the 
strategic use of speaker and grant programs, to support democracy, 
human rights, transparency, and good governance.
    If confirmed, I will advocate for an end to violence against 
journalists and work closely with the Mozambican Government toward 
successful investigations and prosecutions in the outstanding cases of 
murders or physical attacks on prominent journalists and political 
commentators. Those responsible for these high-profile crimes should 
not be permitted to escape with impunity, as this has a negative impact 
on press freedom and basic human rights.
    More broadly, if confirmed, I will ensure the effective use of U.S. 
Government resources to strengthen democracy, human rights, and 
governance through activities that educate magistrates and justice 
officials on anti-corruption laws, train journalists, improve the 
organizational capacities of civil society to hold the Government 
accountable, encourage greater political participation among women and 
youth, and aid election observation efforts.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mozambique in 
advancing human rights, civil society and democracy in general?

    Answer. While the Government has taken steps to investigate, 
prosecute, and punish some individuals who have committed abuses, 
impunity remains a problem at all levels. Many crimes against prominent 
opposition politicians, supporters, and journalists remain unsolved, 
which calls into question local authorities' commitment to seek justice 
in these cases. A shortage of prosecutors, judges, and other legal 
professionals also exists, and some civil society groups assert that 
the executive branch exerts influence on the understaffed and 
inadequately trained judiciary.
    If confirmed, I would hope to work closely with the Mozambican 
Government to promote the rule of law and respect for human rights, and 
urge thorough and successful investigations and prosecutions in 
outstanding cases.
    Political inclusion, respect for human rights, and the rule of law 
remain weak, undermining the country's long-term prospects for peace 
and stability. The continued convergence between the state and the 
ruling party has constrained democratic debate and led to endemic 
corruption at all levels of government. Local civilian capacity to 
press for reforms will require continued donor technical assistance and 
funding.
    If confirmed, I will work to increase capacity to uphold 
Mozambique's constitution and laws, which provide for an independent 
and impartial judiciary and enshrine certain rights and freedoms. I 
will also continue the mission's work to provide institutional and 
individual support for democratic rights through civil society and 
human rights organizations that advocate for legal and regulatory 
reforms.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mozambique? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to engaging with human rights, civil 
society, and other non-governmental organizations in the United States 
and in Mozambique, as I have proactively done throughout my career.
    If confirmed, I will fully support the Leahy Law and similar 
efforts and ensure that U.S. security assistance and security 
cooperation reinforce respect for human rights. I will ensure that my 
staff do the same.

    Question 5. Will you and your embassy team actively engage with 
Mozambique to address cases of key political prisoners or persons 
otherwise unjustly targeted by Mozambique?

    Answer. Yes. The most recent State Department Human Rights Report 
did not identify any cases of political prisoners or detainees in 
Mozambique. However, if I am confirmed, my team and I will actively 
engage with the Government of the Republic of Mozambique to address any 
cases of political prisoners or others unjustly targeted which may 
arise in the future. I will continue to advocate for the respect of 
fundamental human rights and for all persons to receive timely, fair, 
and equitable access to justice in Mozambique.

    Question 6. Will you engage with Mozambique on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I also commit to engage with Mozambique on 
matters of human rights, civil rights, and governance. I would consider 
this central to my role as the U.S. Ambassador.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Mozambique?

    Answer. No. Neither I, nor members of my immediate family have 
financial interests in Mozambique.

    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. Diversity and inclusion are core principals of the 
Department of State, and I firmly believe that embracing diversity 
promotes stronger teams and a workplace culture that values the efforts 
of all individuals, increases our capabilities and creativity, and 
enhances the professional experiences of all of our staff. As has been 
the case throughout my career, if confirmed, I would reaffirm my 
commitment to recruiting, mentoring, and supporting employees from 
different backgrounds and experiences, and ensure the strict adherence 
to equal employment opportunity principles. I consider it a duty and a 
privilege to position a broad range of officers for success in the 
profession that has afforded me tremendous opportunities. I would 
actively promote a diverse, inclusive, and professionally fulfilled 
workforce at the U.S. Embassy in Maputo.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. As called for in the Department's precepts, I will 
cultivate an environment that values diversity and respect for equal 
employment opportunity and merit principles. I will model those 
behaviors and hold those under my direction to the very highest 
standards in accordance with Department regulations and the law.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Mozambique 
specifically?

    Answer. Corruption undermines the rule of law, democratic 
governance, accountability, and sustainable development. It breaches 
the contract between citizens and public officials and diverts national 
resources needed to improve the lives of a country's citizens to enrich 
a few. Corruption erodes the people's confidence in government and its 
institutions, disrupts the provision of public services, and has a 
powerful negative effect on foreign investment by destroying investor 
confidence and impeding productivity, stifling a country's economic 
growth.
    Strengthening democratic governance is essential to building a more 
peaceful and prosperous Mozambique. With the promise of significant 
government revenues in the next five to ten years flowing from 
Mozambique's vast natural gas reserves, the United States has a unique 
opportunity to support good governance, strong and independent 
institutions, and a robust civil society to ensure that resource-
derived revenues are used for the public good rather than the 
betterment of a few. Additionally, with a new peace agreement in place 
and demilitarization underway, increased focus on political inclusion 
and the rule of law will be essential to long-term peace and stability. 
If confirmed, these will be among my highest priorities.

    Question 13. What is your assessment of corruption trends in 
Mozambique and efforts to address and reduce it by that government?

    Answer. Corruption is a serious and pervasive issue in Mozambique. 
Systemic weaknesses in transparency and accountability have facilitated 
corruption and need to be addressed, particularly before the arrival of 
government revenues from Mozambique's vast natural gas reserves. 
Building government systems and civil society capacity to enable 
necessary reforms will require continued development partner technical 
assistance and funding.
    Mozambique's President Filipe Nyusi recently launched an anti-
corruption campaign, and the Mozambican Government continues reform 
discussions with the International Monetary Fund. Both provide avenues 
through which the United States can productively engage on government 
transparency and accountability.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Mozambique?

    Answer. If I am confirmed, promoting transparency and strengthening 
national institutions and civil society will be a key part of my work 
in Mozambique. I would anticipate employing a whole-of-government 
approach working with Mozambican partners to improve accountable, 
transparent, and effective governance across all sectors. I would 
encourage regular inclusion of transparency and accountability themes 
in our embassy's public outreach efforts and continue the embassy's 
engagement with civil society and Mozambican Government partners on 
these critical issues.
    Long-term growth and stability depends upon investor confidence and 
the active participation of the Mozambican Government and public in 
ensuring the responsible and sustainable use of revenue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Dennis Walter Hearne by Senator Cory A. Booker

    Question 1. There has been a long simmering conflict in Mozambique 
between the socialist FRELIMO ruling party against RENAMO, a guerrilla 
group first formed as a proxy of the white regime in Rhodesia. Direct 
talks between President Nyusi and the RENAMO leadership led to an early 
2018 deal-albeit one requiring constitutional changes-calling for 
decentralization reforms. Parliament, however, conditioned passage of 
implementing legislation on a prospective separate deal on the 
demobilization and military integration of RENAMO fighters.

   To what extent are the two deals being implemented? What is your 
        view on whether they are likely or not to definitively end the 
        conflict? What further RENAMO-Government talks on other issues, 
        if any, are expected?

    Answer. A cessation of hostilities between the FRELIMO-led 
Government and the main opposition party RENAMO has held since December 
2016. This, coupled with the successful conclusion of peace 
negotiations in August 2018, creates the opportunity for genuine 
reconciliation in Mozambique. Formal negotiations between the parties 
have ended, and the process has now advanced to the implementation 
phase.
    As the question highlights, direct talks between President Nyusi 
and the late RENAMO leader Afonso Dhlakama led to the approval of 
constitutional amendments in May 2018 aimed at implementing a 
decentralization agreement, addressing a key RENAMO demand. These 
amendments open the door to opposition parties being able to govern the 
provinces and districts in which they earn a majority of votes, and the 
creation of elected local; district; and provincial governments 
provides an opportunity to assist Mozambique in consolidating its 
democracy. The first test of the decentralization agreement will be the 
October 2018 municipal elections, for which the U.S. Embassy in Maputo 
will field multiple teams of observers.
    In August 2018, the parties concluded an agreement on the second 
and final element of the peace process--the demilitarization, 
demobilization, and reintegration (DDR) of RENAMO combatants--offering 
a real chance at achieving sustainable peace in Mozambique after 
decades of conflict. Under the terms of the DDR accord, the Government 
and RENAMO agreed to the integration of a small number of leaders from 
RENAMO's armed wing into senior leadership positions in the national 
armed forces and police, followed by the integration of several hundred 
personnel into both national security institutions and the 
demobilization and disarmament of the remainder of its forces. A small 
group of international partners, including the United States, has 
already responded affirmatively to an invitation by President Nyusi to 
provide experts to assist with monitoring the implementation of the DDR 
agreement, which will begin in October.
    Supporting the two tracks (decentralization and demilitarization) 
of the nascent and fragile peace agreement and continuing the 
exceptional work of my predecessor and his team in this area will be 
among my highest priorities as Ambassador, if confirmed. Sustained U.S. 
and international support both for both processes will be critical for 
long-term peace and stability.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Simon Henshaw by Senator Roberet Menendez

    Question 1. What is the budget for democracy and governance in 
Guinea? What activities does it support? What activities are we 
supporting to help ensure credible legislative elections in 2019? What 
specific steps will you take, if confirmed as Ambassador, to support 
credible elections?

    Answer. In Fiscal Year 2017, U.S. foreign assistance provided $3.0 
million in support of good governance and political competition 
activities. These funds will improve citizens' understanding and 
participation in legal governance reform efforts and the accountability 
of elected and appointed officials both at the national and local 
levels. Activities will expand opportunities for citizen involvement 
and oversight as well as encourage a public dialogue on the importance 
of transparent political competition in order to rebuild public trust 
in the Government of Guinea.
    The U.S. Embassy in Conakry continues to work with the Government, 
the ruling coalition, the opposition, and civil society groups to 
encourage dialogue, respect for the democratic process, and interethnic 
cooperation during Guinea's ongoing transition to democracy.
    If confirmed, I will continue, and where appropriate, expand upon, 
the consistent and robust engagement we have with all legitimate actors 
in the run-up to the national legislative elections, notionally 
scheduled for 2019. This includes support of the Independent National 
Electoral Commission (CENI) and civil society efforts. We will also 
have Embassy observers on the ground during the legislative elections 
and coordinate our efforts with the international community, including 
but not limited to the Economic Community of West African States, the 
United Nations, and the European Union.

    Question 2. In September 2009, security forces allegedly killed at 
least 150 protesters and raped more than 100 women while suppressing a 
peaceful protest against the military junta in what became known as the 
``stadium massacre.'' In late 2017, a panel of Guinean judges concluded 
an investigation into the massacre:

    Has anyone been held accountable for the so called stadium 
massacre? Has there been a credible investigation and or prosecution of 
those responsible for the killing of seven protestors in February of 
2017 or the 2016 death of Thierno Hamidou Diallo? What role should the 
U.S. play in supporting accountability? What steps will you take, if 
confirmed, to foster accountability in the security sector?

    Answer. Through participation in the Comite de Pilotage, the 
steering committee responsible for organizing the trial for the 2009 
stadium massacre, and continued Embassy outreach, we continue to 
encourage and work with the Government of Guinea on holding the 
perpetrators of the 2009 stadium massacre accountable and on the 
organization of a fair trial. The Department of State has also 
allocated funds to assist Guinea with holding the trial. We are working 
with the United Nations, the European Union, and Guinean victim 
advocacy groups to help bring those responsible to justice.
    We recognize that Guinea has had a long and unfortunate history 
that has encompassed grievous human rights violations and other 
atrocities. The current democratically elected government has committed 
itself to national reconciliation and the improvement of human rights 
in the country. As part of our support for human rights and national 
reconciliation, the United States Government has supported numerous 
training programs for law enforcement in the area of modern police 
techniques that respect human rights. The Department of State also 
funds security sector reform advisors in the Ministries of Security and 
Defense, who help support and implement police accountability and 
respect for human rights.
    If confirmed, I will engage with the Government of Guinea on the 
need to continue progress in dealing with the tragedies of the past and 
preventing such abuses in the future. If confirmed, I will also support 
our Guinean friends in their own efforts to modernize and reform their 
security and law enforcement services.

    Question 3. The 2018 Trafficking in Persons Report lists Guinea as 
Tier Two Watch List.Are there any State Department programs that are 
aimed at training magistrates and prosecutors in the lower courts on 
the new articles related to trafficking in the 2016 penal code? What 
steps will you take to ensure that the Government of Guinea holds 
complicit officials accountable for crimes related to trafficking? If 
confirmed, what specific steps can you take as Ambassador to raise 
public awareness about trafficking, included forced child labor?

    Answer. While Guinea does not meet the Trafficking Victims 
Protection Act's Minimum Standards for the Elimination of Trafficking 
in Persons, the Government of Guinea demonstrated significant efforts 
in the 2018 TIP reporting period to merit an upgrade to Tier 2 Watch 
List.
    The Office to Monitor and Combat Trafficking in Persons (TIP) and 
Embassy Conakry are working with U.N. Office on Drugs and Crimes to 
deliver two five-day training courses for police, border officials, 
labor inspectors, prosecutors, and magistrates on victim-centered 
investigation and prosecution of human trafficking cases, with a 
special focus on the 2016 penal code trafficking articles. If 
confirmed, I will continue on-going coordination efforts with the TIP 
office and our international partners on future training opportunities 
for the Government of Guinea.
    During the 2018 Trafficking in Persons Report reporting period, the 
Government of Guinea prosecuted and convicted 18 individuals in four 
cases. Of the 18 convicted traffickers, one received a suspended 
sentence while 17 received non-suspended sentences; eight traffickers 
received sentences of at least two years' imprisonment. This is an 
improvement from the 2017 TIP Report reporting period, when only four 
suspects were charged and three were convicted. Those three all 
received suspended sentences. Yet despite the progress, law enforcement 
capacity and victim protection efforts remained low.
    If confirmed, I will work to encourage the Government to continue 
taking action against human trafficking, including through raising 
awareness and enlisting the support of communities and local government 
to address this crime.

    Question 4. Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff when you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Guinea?

    Answer. If confirmed, I will fully brief Members of Congress and/or 
their staff when I am in Washington for official consultations.

    Question 5. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My work on the El Salvador Desk and then as political 
officer in El Salvador from 1991 to 1996 supported the end of the war 
and the establishment of a freely elected government. I worked closely 
with the political parties formed by the ex-guerrillas, including 
pushing for investigations of all human rights abuses. In Honduras, as 
Deputy Chief of Mission from 2008 to 2011, I supported and implemented 
our policy to reject the coup d'etat against the Government and to 
support free elections to restore democracy. In my first tour in the 
Philippines, 1985 to 1987, I assisted in organizing and participated in 
political reporting teams that spread around the country to cover the 
Marcos/Aquino election. As Principal Deputy Assistant Secretary and 
then Acting Assistant Secretary for the Bureau of Population, Refugees, 
and Migration (PRM), I promoted U.S. humanitarian policies worldwide. I 
was instrumental in pushing several first asylum countries to expand 
employment and educational opportunities for large refugee populations. 
I also quickly brought U.S. resources to bear to respond to the 
Rohingya crisis, visiting both Bangladesh and Burma to focus attention 
on the issue.

    Question 6. What issues are the most pressing challenges to 
democracy or democratic development in Guinea? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Guinea's democratic development continues to face numerous 
challenges, as it remains in the early stages of a transition from 
decades of authoritarian rule. The challenges include, but are not 
limited to, creating a culture and tradition of adherence and respect 
for constitutional and democratic norms, including due process, 
combatting official impunity and corruption, increasing transparency in 
the governing and legislative process, and ongoing efforts to reform 
the security and police services.

    Question 7. What steps will you take--if confirmed--to support 
democracy in Guinea? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, my priorities will include continuing our 
work with Guinea to develop strong government institutions, and promote 
inclusive, effective, and participatory governance. I am also committed 
to continuing U.S. participation in the Comite de Suivi, the national 
political roundtable created to encourage dialog and peaceful dispute 
resolution between political parties, government authorities, non-
governmental organizations, civil society groups, and international 
observers. In addition to promoting dialogue and consensus, if 
confirmed, I will work to strengthen the capacity and structure of 
political parties; expand civic and voter education; and enhance the 
monitoring of electoral systems.
    It is my hope that if confirmed as Ambassador to Guinea, these 
efforts, along with those from other international governmental and 
non-governmental partners, will help solidify a solid democratic 
political foundation for Guineans to nurture and cultivate their young 
democracy. While it is inevitable that challenges and other bumps on 
the road will happen, as with the creation of any national political 
culture, I am convinced that the United States, along with our Guinean 
and other international partners, can play a positive role in 
democracy's taking root in Guinea and West Africa. If confirmed, I will 
be committed to keeping the United States as a reliable partner in 
Guinea's efforts to strengthen its democracy.

    Question 8. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will ensure that U.S. Government assistance 
will target good governance, the reinforcement of democratic processes, 
and improved access to justice. By assisting those Guinean institutions 
which fight against inequity, encourage public accountability and 
transparency, and counter the drivers of violence and instability, we 
will be strengthening citizen-responsive governance, democracy, and 
human rights. Specifically, our past work with non-governmental 
organizations, the National Assembly, the Ministry of Health, the 
Ministry of Territorial Administration and Decentralization, the 
Ministry of Justice, and the Ministry of Security and Civil Protection 
have demonstrated how much of an impact we can have when we carefully 
target our efforts to supporting rule of law, transparency, and 
democratic processes.
    If confirmed as Ambassador, I intend for our assistance programs to 
prioritize those efforts which will prove the most beneficial in the 
long term to strengthening democracy, justice, and governance programs, 
while seeking to maximize cost efficiencies and avoid duplication with 
other U.S. Government or international donor efforts.

    Question 9. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Guinea? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed as Ambassador to Guinea, I will engage with 
members of civil society, human rights and other NGOs, whether in 
Guinea or in the United States. I will also pro-actively engage the 
Government of Guinea to address any situation in which NGOs or other 
civil society organizations are restricted or penalized by the 
authorities. We will continue to prioritize the protection and defense 
of civil society, including all human rights defenders.

    Question 10. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, my priorities will include regular meetings 
with all democratically oriented political actors. I will use all tools 
at my disposal to encourage the creation and maintenance of an 
inclusive and transparent political system, dedicated to democracy, and 
accessible to women, minorities, and the youth.
    The U.S. Embassy in Conakry has taken and continues to take 
deliberate and concrete steps to foster gender equality, empower women 
and girls, and encourage their participation in all spheres of Guinean 
political and civil life. If confirmed, I will ensure that the U.S. 
Mission to Guinea continues to make efforts to include women, girls, 
ethnic and religious minorities, young people, and other 
underrepresented groups in our programming efforts. In addition, I am 
committed to combatting gender-based violence, abuse, and female 
genital mutilation (FGM)--one of the most widespread and damaging human 
rights abuses in Guinea. I will also prioritize women's and girls' 
access to and participation in the education, justice, health care, and 
economic sectors.

    Question 11. Will you and your embassy team actively engage with 
Guinea on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Guinea?

    Answer. If confirmed, I will continue to support all efforts to 
advance press freedom. In addition, if confirmed, I will meet with 
independent media and local press as part of our Embassy's efforts to 
reinforce a free and open media environment in Guinea.

    Question 12. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I commit to ensuring the embassy remains 
actively engaged with government counterparts and members of civil 
society to counter any disinformation or propaganda disseminated by any 
foreign or non-state actors. Given how damaging disinformation 
campaigns can be, we will remain vigilant should any such methods of 
propaganda emerge in Guinea, particularly as we approach legislative 
and presidential elections.

    Question 13. Will you and your embassy teams actively engage with 
Guinea on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Guinea has a long history of labor activism. Currently, 
major industries, including the mining, port, public service, and 
transportation sectors all have active unions. In many cases, unions 
have freely organized and executed demonstrations against government 
policies. If confirmed, I will continue our long-standing engagement 
with the Guinean labor movement, independent trade unions, and other 
non-governmental organizations dedicated to defending labor rights 
under the law.

    Question 14. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Guinea, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Guinea? What specifically will you commit to do to help LGBTI 
people in Guinea?

    Answer. Guinea is a tolerant, multi-ethnic, multi-religious 
society. I am not aware of any acts of violence or intimidation against 
anyone in Guinea based on their sexual orientation, or gender identity.
    If confirmed, I will use my office to highlight the strengths of 
diversity and acceptance of all people for who they are. The United 
States is rightfully proud of the strides we have made, and continue to 
make, in living up to our founding principle that everyone is equal 
under the eyes of the law. I believe that if confirmed, I can use the 
persuasive power of the Embassy to help Guineans begin to address this 
important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Simon Henshaw by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My work on the El Salvador Desk and then as political 
officer in El Salvador from 1991 to 1996 supported the end of the war 
and the establishment of a freely elected government. I worked closely 
with the political parties formed by the ex-guerrillas, including 
pushing for investigations of all human rights abuses. In Honduras, as 
Deputy Chief of Mission from 2008 to 2011, I supported and implemented 
our policy to reject the coup d'etat against the Government and to 
support free elections to restore democracy. In my first tour in the 
Philippines, 1985 to 1987, I assisted in organizing and participated in 
political reporting teams that spread around the country to cover the 
Marcos/Aquino election. As Principal Deputy Assistant Secretary and 
then Acting Assistant Secretary for the Bureau of Population, Refugees, 
and Migration (PRM), I promoted U.S. humanitarian policies worldwide. I 
was instrumental in pushing several first asylum countries to expand 
employment and educational opportunities for large refugee populations. 
I also quickly brought U.S. resources to bear to respond to the 
Rohingya crisis, visiting both Bangladesh and Burma to focus attention 
on the issue.

    Question 2. What are the most pressing human rights issues in 
Guinea? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Guinea? What do you 
hope to accomplish through these actions?

    Answer. Guinea's democratic development continues to face numerous 
challenges, as it remains in the early stages of a transition from 
decades of authoritarian rule. The challenges include, but are not 
limited to, creating a culture and tradition of adherence and respect 
for constitutional and democratic norms, including due process; 
combatting official impunity and corruption; increasing transparency in 
the governing and legislative process; and reforming the security and 
police services.
    If confirmed, my priorities will include continuing to work with 
the Government of Guinea and civil society organizations to develop 
strong government institutions and promote inclusive, effective, and 
participatory governance. I am also committed to continuing active U.S. 
participation in the Comite de Suivi, the national political roundtable 
created to encourage dialogue and peaceful dispute resolution between 
political parties, government authorities, non-governmental 
organizations, civil society groups, and international observers. In 
addition to promoting dialogue and consensus, if confirmed, I will 
continue to work to strengthen the capacity and structure of political 
parties; expand civic and voter education; and enhance the monitoring 
of electoral systems.
    It is my hope that if confirmed as Ambassador to Guinea, these 
efforts, along with those from other international governmental and 
non-governmental partners, will help solidify a solid democratic 
political foundation for Guineans to nurture and cultivate their young 
democracy. While it is inevitable that challenges will remain, as with 
the creation of any national political culture, I am convinced that the 
United States, along with our Guinean and other international partners, 
can play a positive role in democracy is taking root in Guinea and West 
Africa. If confirmed, I will be committed to keeping the United States 
a reliable partner in Guinea's struggle for democracy.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Guinea in advancing 
human rights, civil society and democracy in general?

    Answer. Guinea's democratic development continues to face numerous 
challenges as it remains in the early stages of a transition from 
decades of authoritarian rule. The challenges include, but are not 
limited to, promoting greater adherence to the constitution and 
democratic norms, including due process and sound policy making; 
countering deeply entrenched mismanagement and corruption at all levels 
of government; and advancing security sector reform.
    The challenges in advancing human rights, civil society, and 
democracy in general stem from decades of authoritarian government and 
general mismanagement. Advancing civic education should, over time, 
improve civic culture, thereby reducing at least some of the challenges 
Guinea faces, including the lack of understanding of basic 
constitutional and democratic norms; the prevalence of corruption and 
impunity; and the need for transparency in governing and the 
legislative process.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Guinea? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed as Ambassador to Guinea, I will engage with 
members of civil society, human rights organizations, and other NGOs, 
whether in Guinea or in the United States.
    Further, if confirmed, I will proactively support the Leahy Law and 
similar efforts, and ensure that U.S. security assistance and security 
cooperation activities reinforce human rights. The Leahy laws are based 
on a basic principle: a government security apparatus' respect for 
human rights bolsters its legitimacy and trustworthiness and enhances 
its ability to protect its citizens. Moreover, holding violators 
accountable fortifies the rule of law, which is key to improving 
governance in Guinea. If confirmed, I will work with the team at our 
Embassy in Conakry to convey this message forthrightly and consistently 
to the Government of Guinea at all levels. The Department of State vets 
all assistance to security forces in Guinea in accordance with the 
Leahy Law, without exception. If confirmed, I will ensure that our 
vetting continues to be comprehensive, thorough, and in full compliance 
with the Leahy Law, and that any units whose members violate human 
rights are restricted from receiving any training or other assistance 
until the responsible actors are brought to justice. I will strongly 
urge Government of Guinea to hold any violators accountable for their 
actions.

    Question 5. Will you and your embassy team actively engage with 
Guinea to address cases of key political prisoners or persons otherwise 
unjustly targeted by Guinea?

    Answer. While currently there are no known political prisoners in 
Guinea, if confirmed, I will actively engage with the Government of 
Guinea to address any cases of known persons otherwise unjustly 
targeted by Guinea.

    Question 6. Will you engage with Guinea on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will absolutely engage Guinean officials on 
human rights, civil rights, and governance issues as part of my 
bilateral mission.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Guinea?

    Answer. Neither I nor any member of my immediate family, have any 
financial interests in Guinea.

    Question 10. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will seek to appoint staff that come from 
diverse backgrounds and underrepresented groups. I will mentor members 
of those groups, as I have in past assignments, and will work with them 
to help them advance their careers, including recommending promotion 
and future assignments.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I will make clear that the EEO language in every employee's 
work requirements will be considered an integral part of successful job 
performance during the evaluation period. I will regularly seek 
feedback from employees on their perceptions of their workplace 
environment and correct issues that detract from an inclusive 
workplace. I will recognize those employees who demonstrate exceptional 
EEO leadership.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Guinea 
specifically?

    Answer. Poverty in Guinea is rooted in the deeply entrenched 
mismanagement and corruption of the state. Specifically, official 
corruption opens the door to human rights abuses and negatively affects 
good governance and the rule of law. For example, corruption and 
complicity by government agents in supporting the illicit drug trade in 
Guinea remain major impediments to international and local counter 
narcotics efforts.

    Question 13. What is your assessment of corruption trends in Guinea 
and efforts to address and reduce it by that government?

    Answer. Guinea has made significant strides to reduce the deeply 
entrenched corruption that exists at every level of government. For 
example, in July 2017, as a sign of its commitment to improving the 
business climate, Guinea passed an anti-corruption law. The Government 
has worked hard on transparency reforms, tackling corruption, and 
sustaining its commitment and leadership in the implementation of the 
Extractive Industries Transparency Initiative (EITI), in part in 
response to previous corruption scandals.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Guinea?

    Answer. If confirmed, I will support Guinea's continued efforts to 
combat corruption. I will also seek to advance human rights in Guinea 
by working with the Government to address the culture of impunity and 
official corruption that has opened the door to human rights abuses in 
the past. I will also support U.S. efforts that focus on developing 
stronger Guinean institutions that can effectively combat corruption, 
narcotics trafficking, and transnational crime.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Simon Henshaw by Senator Cory A. Booker

    Question 1. As with many African states North Korea has had long-
standing relations with Guinea stemming from the 1960s and 70s. Over 
the past several years, the U.N. Panel of Experts responsible for 
monitoring compliance with U.N. sanctions on North Korea has identified 
a number of prohibited economic activities by North Korean individuals 
and enterprises in Guinea.

   What is your understanding of the current status of prohibited 
        North Korean activities in Guinea and should we be doing more 
        to address this issue?

    Answer. The Guinean Government has indicated to us that relations 
with North Korea are a legacy of Guinea's post-independence period and 
are more symbolic than policy driven. North Korea has an embassy in 
Conakry that is staffed with very few diplomats. The government of 
Guinea has not denied the existence of DPRK guest workers in the 
country and claims to be exploring ways to limit their presence.
    The Department has raised the issue of Guinea's relations with the 
DPRK, both economic and diplomatic, at the highest levels of government 
and will continue to raise the matter until Guinea is in full 
compliance of all U.N. Security Council resolutions aimed at the DPRK.



                               __________


 
                              NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 4, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:11 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
chairman of the committee, presiding.
    Present: Senators Johnson [presiding], Murphy, Kaine, and 
Menendez.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. The hearing of the Senate Foreign 
Relations committee will come to order. I apologize for being 
late, and for the tardiness of this entire hearing.
    We are gathered today to consider four nominations, the 
Ambassador for--Ambassador to Cyprus, to Iceland, to 
Azerbaijan, and Bosnia and Herzegovina.
    I want to welcome all the nominees. I want to thank them 
for their willingness to serve, your past service. I certainly 
want to welcome the families as well.
    Because I am late, I will just ask that my opening 
statement be entered into the record. Suffice it to say these 
are incredibly important nations--countries to be represented 
by what I consider some excellent nominees here for the 
position.
    [Senator Johnson's prepared statement follows:]


                Prepared Statement of Hon. Ron Johnson, 
                      U.S. Senator from Wisconsin

    Today's nominees, if confirmed, will represent U.S. interests in 
four important relationships.
    Iceland has been a U.S. ally for almost 70 years. In 1949, with a 
population of only 140,000 and without a standing army, Iceland became 
one of only twelve founding members of NATO. Iceland's location astride 
the sea lanes between Greenland, Iceland, and the United Kingdom gave 
NATO control over the Soviet Baltic Fleet's only access points to the 
North Atlantic-a critical asset throughout the Cold War. Iceland also 
became an important part of the U.S. early warning radar array in the 
Artic. Russia's destabilizing resurgence over the last several years 
has reemphasized Iceland's enduring importance to NATO's security. 
Russia has launched new classes of nuclear attack and ballistic missile 
submarines, modernized its nuclear arsenal, and declared expansive 
intentions in the Artic. Strengthening our economic and political ties 
with Reykjavik and reinvesting in our longstanding defense partnership 
should be top foreign policy priorities.
    Azerbaijan, like Iceland, punches well above its weight in 
international politics. The U.S. and Azerbaijan share common security 
and economic interests. After 9/11, Azerbaijan became an important U.S. 
partner in the wars in Afghanistan and Iraq, providing troops and 
serving as a logistics hub supporting NATO and U.S. operations. With 
sizeable natural gas deposits in the Caspian Sea, Azerbaijan is also 
the key to U.S. efforts to open a southern gas corridor to Europe. 
However, these common interests are complicated by ongoing concerns 
about the state of democracy and human rights protections in 
Azerbaijan. Balancing this delicate relationship will require a deft 
touch from our Ambassador in Baku.
    In Bosnia and Herzegovina, though the economy has experienced 
around 3 percent annual growth for several years, the unemployment rate 
remains high and corruption is widespread. Bosnia's election next week 
may be a critical juncture in its history. The failure of this year's 
electoral reform efforts has cast doubt on whether a new government can 
be formed after the election. This difficult situation is complicated 
further by Milorad Dodik's separatist intrigues in Bosnia's Republika 
Srpska. Having an experienced American diplomat in Sarajevo will be 
important as Bosnia navigates these challenges and seeks to forge a 
durable political solution.
    In Cyprus, the stalemate between Greek and Turkish Cypriots 
continues to be one of the most intractable disputes in international 
politics. Over nearly half a century, numerous multilateral and 
bilateral efforts to negotiate Cyprus' reunification have fallen short. 
The most recent effort appeared close to a breakthrough before it too 
collapsed in July 2017. The U.S. has significant interests in resolving 
this conflict. Cyprus continues to be a source of considerable tension 
between Greece and Turkey, negatively affecting NATO solidarity. 
Additionally, the discovery of considerable offshore natural gas 
deposits over the last decade have made Cyprus a major emerging energy 
player in the Mediterranean and an enticing option for weening Europe 
off its dependence on Russian gas.
    Before moving to introductions, I would like to recognize the 
distinguished ranking member for his comments. Senator Murphy.


    Senator Johnson. So with that, I will turn it over to 
Senator Murphy.

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman. Looking 
forward to your testimony. I will just say a few words about 
the important posts we are about to attend to, we hope.
    In Bosnia and Herzegovina, ethnic tensions continue to pull 
this country apart at the seams, while political self-interests 
and navel gazing by many of its leaders has prevented Bosnia 
from moving forward on EU or NATO integration.
    It is about time that the United States step up and try to 
provide some real leadership here. Ultimately, these decisions 
are up to the people of Bosnia and Herzegovina themselves. But 
U.S. leadership has been critical at so many times in the past 
trying to reconcile these tensions in the region, and they will 
be in the future.
    Cyprus is another complicated assignment, given the 
longstanding division of the island, but we are still hopeful 
that an agreement can be reached as reunification under our bi-
zonal, bicommunal federation would bring benefits to everyone 
there. And the Eastern Mediterranean gas discovery offers some 
significant new economic opportunities to strengthen regional 
cooperation, especially with Israel.
    Just as Cyprus's energy resources are a potential 
alternative to Russian gas, Azerbaijan is so important as a 
natural gas supplier to Europe. We are appreciative of their 
partnership, and their partnership with Europe on energy 
securities, but we have to remain concerned about the lessening 
political freedom inside Azerbaijan.
    As a bipartisan taskforce on extremism recently noted, 
where citizens are free to engage in civic and political 
organizations, extremists struggle to attract followers. But 
where extremists provide the only viable option for change, 
they gain traction.
    And finally, Iceland, it had its own brush with instability 
following the banking collapse of 2008, but it is now an 
economic and democratic success story, with an up- and-coming 
soccer team to boot.
    And so we are glad to have all four of you before us today. 
We look forward to your testimony.
    Senator Johnson. And as I mentioned, Dr. Gunter, make sure 
you have a good rain suit for Iceland.
    Our first nominee will be Ambassador Judith Gail Garber. 
Ambassador Garber is the nominee to be U.S. Ambassador to 
Cyprus. Ambassador Garber is a career member of the senior 
Foreign Service, with a rank of career minister. She is 
currently Principal Deputy Assistant Secretary for the Bureau 
of Oceans and International Environmental and Scientific 
Affairs, a position she has held since 2014.
    She also has served at six U.S. missions overseas, 
including as Ambassador to Latvia, from 2009 to 2012. 
Ambassador Garber is a recipient of 20 notable State Department 
awards, and speaks Spanish, Hebrew, Czech, and Latvian.
    Ambassador Garber.

       STATEMENT OF HON. JUDITH G. GARBER, NOMINEE TO BE
           U.S. AMBASSADOR TO THE REPUBLIC OF CYPRUS

    Ambassador Garber. Mr. Chairman, Ranking Member Murphy, and 
members of the committee, I am honored to appear before you 
today to be considered for the position of the United States 
Ambassador to the Republic of Cyprus.
    I am grateful to be nominated by President Trump, and 
appreciate Secretary Pompeo's confidence in me. If confirmed, I 
pledge to work with all of you to advance in Cyprus the 
fundamental U.S. interests in a Europe whole, free, prosperous, 
and at peace.
    I would like to recognize my husband, Paul, who is here 
today, and thank him for his love and support over a long 
Foreign Service career. I am humbled to be considered again to 
serve as a U.S. Ambassador. It is an honor and a privilege to 
represent the United States.
    This is an important time for Cyprus, a country situated at 
the crossroads of Europe, the Middle East, and Africa. It is at 
this place that U.S. national interests in anchoring the Euro-
Atlantic Alliance, securing the Eastern frontier, and 
stabilizing the south intersect. Our commitment to encouraging 
the leaders of the Greek Cypriot and Turkish Cypriot 
communities to forge a just and lasting settlement remains as 
resolute as ever.
    If confirmed, I would do all that I could to support 
efforts by these leaders, by ordinary Cypriots, by the 
guarantor powers, and by the U.N. to reach the promise of a bi-
zonal, bi-communal federation.
    A reunified Cyprus would provide a more prosperous future 
for all Cypriots. Such an example would resonate well beyond 
the island, strengthening the relations in all corners of the 
Eastern Mediterranean and throughout the world. It would also 
serve as an inspiration for others who wish to define a new 
future after a painful past.
    The Republic of Cyprus is a valued friend and important 
strategic partner with whom we cooperate on a range of 
priorities, including counterterrorism, maritime security, and 
law enforcement. Cyprus's participation in the Global Coalition 
to Defeat ISIS as well as its regional efforts to prevent the 
proliferation of weapons of mass destruction demonstrate its 
commitment to international security.
    We are working systematically to strengthen our relations 
with the Republic of Cyprus, including in the areas of security 
cooperation and counterterrorism. If confirmed, I will continue 
this effort.
    The discovery of natural gas resources in the Eastern 
Mediterranean, including in Cyprus's offshore waters, has 
expanded possibilities for increasing regional energy security 
through diversification of resources, routes, and suppliers.
    We have emphasized our support to the Republic of Cyprus's 
right to develop hydrocarbon resources in its Exclusive 
Economic Zone. We also believe the resources should be shared 
equitably between both communities within the context of an 
overall settlement.
    Hydrocarbons have the potential, if managed correctly, to 
be a catalyst for increased cooperation, for enhanced regional 
stability and prosperity, and should serve as an incentive to 
Cyprus for settlement. If confirmed, I would seek to build upon 
this potential.
    Cyprus's economy has proven to be resilient, with the help 
of an IMF program, but additional reforms will be necessary to 
sustain future growth. Cyprus continues to support IMF post-
program monitoring, illustrating their resolve to keep the 
economy on a positive trajectory. However, Cyprus needs to 
modernize its foreclosure and bankruptcy laws, and accelerate 
efforts to reduce the high level of non-performing debt.
    It also needs to take more steps to combat the numerous 
challenges and risks posed by illicit Russian money in the 
economy. To sustain economic growth, Cyprus needs to control 
public sector spending, take steps to diversify the economy, 
and implement legal reforms to preserve confidence in the 
banking sector.
    We also pay close attention to the integrity of the Cypriot 
financial sector. We are encouraged by the progress of local 
banks to boost regulations by culling suspicious accounts, and 
hiring additional personnel to conduct due diligence. If 
confirmed, I will encourage the Republic of Cyprus to continue 
to strengthen its banking regulations and implement measures to 
limit the ease of shell company formation.
    At the same time, progress on a settlement could have a 
positive impact on the entire island's economy. Study after 
study has shown a Cyprus settlement would create opportunities 
for greater trade and investment, bringing tangible benefits to 
all Cypriots.
    If confirmed, I will be accredited to the Republic of 
Cyprus. I will support both Greek Cypriot and Turkish Cypriot 
communities in their efforts to pursue reconciliation and 
reunification.
    I believe my experience has prepared me well for the 
challenges and opportunities ahead. I have dedicated much of my 
career to advancing U.S. economic interests. If confirmed, I 
will also draw upon my previous experience as an ambassador in 
a small European Union country with communal divisions in a 
complicated neighborhood.
    If confirmed, I will work to strengthen the bonds between 
the United States and the Republic of Cyprus. I will work with 
Members of Congress, partners throughout the U.S. Government, 
and the private sector, and with the dedicated staff of the 
Embassy in Nicosia to further our goals in Cyprus and support 
the promise of a better future for all Cypriots.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to be here with you today. I would be pleased 
to answer any questions you may have.
    [Ambassador Garber's prepared statement follows:]


              Prepared Statement of Hon. Judith G. Garber

    Mr. Chairman, Ranking Member Murphy, and members of the committee, 
I am honored to appear before you today to be considered for the 
position of the United States Ambassador to the Republic of Cyprus.
    I am grateful to be nominated by President Trump and appreciate 
Secretary Pompeo's confidence in me.
    If confirmed, I pledge to work with all of you to advance in Cyprus 
the fundamental U.S. interest in a Europe whole, free, prosperous, and 
at peace.
    I'd like to recognize my husband, Paul, who is here today and thank 
him for his love and support over a long Foreign Service career. Paul 
and our five children are truly the source of my strength.
    I am humbled to be considered again to serve as a U.S. Ambassador. 
It is an honor and privilege to represent the United States.
    This is an important time for Cyprus, a country situated at the 
crossroads of Europe, the Middle East, and Africa. It is at this place 
that U.S. national interests in anchoring the Euro-Atlantic Alliance, 
securing the Eastern frontier, and stabilizing the South intersect.
    Our commitment to encouraging the leaders of the Greek Cypriot and 
Turkish Cypriot communities to forge a just and lasting settlement 
remains as resolute as ever.
    If confirmed, I would do all that I could to support efforts by 
these leaders, by ordinary Cypriots, by the guarantor powers, and by 
the United Nations to reach the promise of a bi-zonal, bi-communal 
federation.
    A reunified Cyprus would provide a more prosperous future for all 
Cypriots.
    Such an example would resonate well beyond the island, 
strengthening relations in all corners of the Eastern Mediterranean and 
throughout the world. It would also serve as an inspiration for others 
who wish to define a new future after a painful past.
    The Republic of Cyprus is a valued friend and important strategic 
partner with whom we cooperate on a range of priorities including 
counterterrorism, maritime security, and law enforcement. Cyprus' 
participation in the Global Coalition to Defeat ISIS, as well as its 
regional efforts to prevent the proliferation of weapons of mass 
destruction demonstrate its commitment to international security. We 
are working to systematically strengthen our relations with the 
Republic of Cyprus, including in the areas of security cooperation and 
counterterrorism. If confirmed, I will continue this effort.
    The discovery of natural gas resources in the Eastern 
Mediterranean, including in Cyprus' offshore waters, has expanded 
possibilities for increasing regional energy security through 
diversification of resources, routes, and suppliers.
    We have emphasized our support of the Republic of Cyprus' right to 
develop hydrocarbon resources in its Exclusive Economic Zone. We also 
believe the resources should be shared equitably between both 
communities within the context of an overall settlement.
    Hydrocarbons have the potential, if managed correctly, to be a 
catalyst for increased cooperation, for enhanced regional stability and 
prosperity, and should serve as an incentive to a Cyprus settlement. If 
confirmed, I would seek to build upon this potential.
    Cyprus' economy has proven to be resilient, with the help of an IMF 
program from 2013-2016, but additional reforms will be necessary to 
sustain future growth. Cyprus continues to support IMF post-program 
monitoring, illustrating their resolve to keep the economy on a 
positive trajectory. However, Cyprus needs to modernize its foreclosure 
and bankruptcy laws, and accelerate efforts to reduce the high level of 
non-performing debt. It also needs to take more steps to combat the 
numerous challenges and risks posed by illicit Russian money in the 
economy. To sustain economic growth, Cyprus needs to control public 
sector spending, take steps to diversify the economy, and implement 
legal reforms to preserve confidence in the banking sector.
    We also pay close attention to the integrity of the Cypriot 
financial sector. We are encouraged by the progress local banks have 
made to boost regulations by culling suspicious accounts and hiring 
additional personnel to conduct due diligence. If confirmed, I will 
encourage the Republic of Cyprus to continue to strengthen its banking 
regulations and implement measures to limit the ease of shell company 
formation.
    At the same time, progress on a settlement could have a positive 
impact on the entire island's economy. Study after study has shown a 
Cyprus settlement would create opportunities for greater trade and 
investment, bringing tangible benefits to all Cypriots. If confirmed, I 
would encourage innovation and entrepreneurship to meet this goal.
    If confirmed, I will be accredited to the Republic of Cyprus. I 
will support both Greek Cypriot and Turkish Cypriot communities in 
their efforts to pursue reconciliation and reunification.
    I believe my experience has prepared me well for the challenges and 
opportunities ahead. I have dedicated much of my career to advancing 
U.S. economic interests. If confirmed, I will also draw on my previous 
experience as an Ambassador in a small European Union country with 
communal divisions in a complicated neighborhood.
    If confirmed, I will work to strengthen the bonds between the 
United States and the Republic of Cyprus. I will work with Members of 
Congress, partners throughout the U.S. Government and the private 
sector, and with the dedicated staff of the Embassy in Nicosia to 
further our goals in Cyprus and support the promise of a better future 
for all Cypriots.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to be here with you today.
    I would be pleased to answer any questions you may have.


    Senator Johnson. Thank you, Ambassador Garber.
    Our next nominee is Dr. Jeffrey Ross Gunter. Dr. Gunter is 
the President's nominee to be the U.S. Ambassador to Iceland. 
Dr. Gunter is a physician and healthcare executive. He leads 
Jeffrey Ross Gunter, M.D., Incorporated, specializing in 
dermatology care for rural communities.
    Previously, Dr. Gunter was a clinical professor of medicine 
at the Keck Medicine Center, at the University of Southern 
California, and Chief Resident of Dermatology at the Los 
Angeles County USC Medical Center. He speaks Spanish, French, 
and Dutch.
    Dr. Gunter.

STATEMENT OF DR. JEFFREY ROSS GUNTER, OF CALIFORNIA, NOMINEE TO 
            BE AMBASSADOR TO THE REPUBLIC OF ICELAND

    Dr. Gunter. Thank you, Mr. Chairman. Thank you Ranking 
Member Murphy, members of the committee.
    It is a privilege and an honor to appear before you today 
as President Trump's nominee to serve as the United States 
Ambassador to Iceland. I am humbled by the confidence placed in 
me by the President and the Secretary of State.
    If confirmed, I look forward to working with this committee 
and the Congress in advancing the interests, the prosperity, 
and the protection of the United States in Iceland.
    I would briefly like to introduce and mention my twins. My 
daughter, Sophie, is here today, and my son, Simon, is watching 
us in England, where he is studying translational science.
    My wife, Johanna, was a Jewish American Dutch immigrant, a 
naturalized citizen, who passed away 2 years ago after a brave 
battle with cancer. She is the main reason why I am sitting 
here today.
    I would like to especially thank the chairman for 
introducing me to the committee.
    Last, but not least, I would like to thank the 18 career 
diplomats, my classmates, at the Foreign Service Institute. For 
3 weeks, these tremendous public servants and brilliant 
patriots, who sacrifice so much, mentored me, guided me, and 
led by a shining example. Thank you.
    I sit here before this distinguished committee as a private 
citizen who has never held a government office. However, I have 
spent my life serving others as a doctor, treating patients, 
and managing medical clinics for over 25 years. I believe my 
experience as a practitioner of medicine and as an entrepreneur 
and manager in the private sector will suit me well, if 
confirmed.
    My medical career has been spent in the field of 
dermatology, where my practice has focused on providing 
healthcare to primarily rural areas of the Western United 
States. Historically these areas have had a limited access to 
our healthcare system, patients needing to travel long 
distances to receive specialized care.
    Providing health access to rural communities has also 
blessed me with the opportunity to provide care for a great 
number of our military men, and women, and their dependents. 
Their unparalleled dedication and sacrifice is humbling, 
inspiring, and motivating.
    I believe I will succeed as an ambassador because I have 
learned how to build a large organization, manage and invest in 
staff, deliver care to patients, and be responsive to the needs 
of both the individual and the larger community. Strong values, 
a strong work ethic, and a focus on the mission, coupled with 
the ability to work with others, are the reasons why I believe 
I have been successful.
    If confirmed, I am prepared to bring all of my experience 
and skills to my new responsibility. If confirmed, my foremost 
priority as Ambassador will be promoting the United States' 
interests in Iceland. I will work hard to identify areas of 
common interest, advance these issues, and allow both countries 
to support each other, while working towards progress for our 
common goals.
    While I have never been to Iceland, I have spent a 
considerable amount of time in Western Europe, as my late wife 
was from the Netherlands. I speak Dutch, French, and Spanish. 
What is clear from my studies of Iceland is that it is a 
country of tremendous history, beauty, ambition, resilience, 
and accomplishment. Iceland is home to a proud people, with a 
land shaped by its environment. The environment, like for so 
many of us, is important to me, growing up in Southern 
California, on Santa Monica Bay.
    I have spent my entire career building--I have spent my 
entire career battling on behalf of patients against the 
harmful effects of the sun, and the UVB radiation, which causes 
not only aging, but also life-threatening skin cancer.
    If confirmed, I look forward to continuing the dialogue 
with the Icelandic government about our environment and finding 
ways of engagement to go forward on this important issue.
    Iceland is a NATO founding member and an ally, a close 
partner of the United States. The United States and Iceland 
cooperate on a wide range of important issues, from 
transatlantic security, to the sustainable development of the 
Arctic. In addition, completion of the Embassy's move to the 
long-awaited new chancery, in a seamless fashion, is a top 
priority as well, if confirmed.
    If confirmed, I look forward to working with the Embassy 
staff in Iceland in an encouraging and cooperative manner to 
achieve common goals. My management style is to respect 
everyone, encourage their success, while insisting on great 
work for you all, and the American people.
    Iceland shares our democratic values and strong belief in 
the free market. Because of these fundamental pillars, Iceland 
and America can climb many mountains of opportunity together. 
If I am given the opportunity to represent the United States in 
Iceland, I cannot wait to climb together with the State 
Department and with the members of this committee to meet our 
mutual challenges, and to accomplish our goals.
    Mr. Chairman and members of the committee, thank you for 
this tremendous opportunity to be here today. If confirmed, I 
look forward to hosting your visit to Iceland, and to working 
closely with each and every one of you. My door is always open.
    Thank you.
    [Dr. Gunter's prepared statement follows:]


             Prepared Statement of Dr. Jeffrey Ross Gunter

    Chairman Johnson, Ranking Member Murphy, members of the committee, 
it is a privilege and an honor to appear before you today as President 
Trump's nominee to serve as United States Ambassador to Iceland. I am 
humbled by the confidence placed in me by the President and the 
Secretary of State.
    If confirmed, I look forward to working with this committee and the 
Congress in advancing the interests, prosperity and protection of the 
United States in Iceland.
    I would briefly like to introduce my children, my twins, my son 
Simon, and my daughter, Sophie. My late wife, Johanna, was a Jewish 
American, and a Dutch immigrant naturalized citizen, who passed away 
two years ago, after a brave battle with cancer, and is a large reason 
why, I am sitting here today.
    I would like to specially thank Senator Ron Johnson, for 
introducing me, to the committee.
    I sit here before this distinguished committee as a private citizen 
who has never held government office. However, I have spent my life 
serving others as a doctor, treating patients and managing medical 
clinics for over 25 years. I believe my experience as a practitioner of 
medicine and as an entrepreneur and manager in the private sector will 
suit me well as Ambassador, if confirmed.
    My medical career has been spent in the field of dermatology, and 
my practice has focused on providing healthcare to primarily rural 
areas of the Western United States, which has had historically less 
access our healthcare system, with patients needing to travel long 
distances with great inconvenience to receive care. Providing health 
access to rural communities has also blessed me with the opportunity to 
offer care for a great number of our military men and women and their 
families. Their unparalleled dedication and sacrifices are inspiring 
and have deepened my love of our great country.
    I believe I will succeed as an ambassador because I have learned 
how to build a large organization, manage and invest in staff and 
providers, deliver care to patients, and be responsive to the needs of 
both the individual and the community. This work requires strong 
values, a strong work ethic, and a focus on the mission coupled with 
the ability to work with others. If confirmed, I am prepared to bring 
all of my experience and skills to my new responsibilities.
    If confirmed, my foremost priority as Ambassador will be promoting 
United States interests in Iceland. I will work hard to identify areas 
of common interest, advance these issues, and allow both countries to 
support each other, while working toward progress for our common goals.
    While I have never been to Iceland, I have spent a considerable 
amount of time in Western Europe, as my late wife was from the 
Netherlands. I speak Dutch, French, and Spanish. Nevertheless, what is 
clear from my studies of Iceland is that it is a country of tremendous 
history, beauty, ambition, and accomplishment. Iceland is home to proud 
people and a land shaped by its environment.
    The environment, like for so many of us, is uniquely important to 
me. I have spent my entire career battling on behalf of patients, 
against the harmful effects of the sun and it's ultraviolet radiation, 
and the life-threatening skin cancer, it can create. I look forward, if 
confirmed, to continuing the dialogue with the Icelandic government 
about our environment and mutual ways of engagement going forward.
    Iceland is a NATO ally and close partner of the United States. 
Together, the United States and Iceland cooperate on a range of 
important issues, from transatlantic security, to the sustainable 
development of the Arctic. In addition, completion of the Embassy's 
move to the long-awaited new chancery, in a seamless fashion, is a top 
priority as well.
    If confirmed, I look forward to working with the Embassy staff in 
Iceland in an encouraging and cooperative manner to achieve common 
goals. My management style is to respect everyone, encourage their 
success, while still insisting on great work for you all, and the 
American people.
    Iceland shares our democratic values and belief in the free market. 
Iceland and America can climb many mountains of opportunity together. 
If I am given the opportunity to represent the United States in 
Iceland, I can't wait to climb together with the State Department and 
the members of this committee to meet our mutual challenges and goals.
    Mr. Chairman and members of the committee, thank you for this 
tremendous opportunity to appear before your committee today. If 
confirmed, I look forward to hosting your visit to Iceland and to 
working closely with each and every one of you to advance the interests 
of the United States.


    Senator Johnson. Thank you, Dr. Gunter.
    Our next nominee is Mr. Earle D. Litzenberger. Mr. 
Litzenberger is the nominee to be U.S. Ambassador to 
Azerbaijan. Mr. Litzenberger is a career member of the Senior 
Foreign Service, with the rank of Minister Counselor. He 
currently serves as senior advisor in the Bureau of Political 
Military Affairs.
    Previously, Mr. Litzenberger served as Deputy Chief of 
Mission to NATO, Deputy Chief of Mission in Serbia, and Deputy 
Chief of Mission in Kyrgyzstan.
    Mr. Litzenberger is a recipient of the Matilda W. Sinclaire 
Language Award. He speaks French, Russian, Serbian, and 
Bulgarian.
    Mr. Litzenberger.

          STATEMENT OF EARLE D. LITZENBERGER, NOMINEE 
              TO BE U.S. AMBASSADOR TO AZERBAIJAN

    Mr. Litzenberger. Thank you.
    Mr. Chairman, Ranking Member Murphy, and distinguished 
members of the committee: I come before you today, both honored 
and humbled, to testify as President Trump's nominee to be the 
next U.S. Ambassador to Azerbaijan. I am grateful to the 
President and Secretary Pompeo for the confidence they have 
placed in me. If confirmed, I pledge to work closely with this 
committee and all members of Congress to advance U.S. interests 
in Azerbaijan.
    I would like to thank my family for supporting and sharing 
my 34-year career in the Foreign Service. My wife, Marianne, 
and daughter, Ashley, have joined me here today. Our son, 
Andrew, and daughter-in-law, Tara, and their children, our 
grandchildren, Zachary and Elliana, unfortunately are unable to 
be here.
    Over the course of my career, I have dedicated myself to 
advancing U.S. foreign policy interests, promoting U.S. values, 
and safeguarding our national security.
    Situated astride a geographic and cultural crossroads, the 
South Caucasus is a region of vital importance to the U.S. 
Azerbaijan, the only country to border both Iran and Russia, is 
an important U.S. partner. Our relationship matters not just to 
our two countries, but to Azerbaijan's neighbors and the wider 
region. We stand only to gain from a stable, democratic, 
peaceful, and prosperous Azerbaijan strategically linked to the 
United States and our European friends and allies.
    Since the establishment of our diplomatic relations in 
1992, our cooperation with Azerbaijan has centered on three 
interrelated and equally important areas: Security, energy and 
economic growth, and democracy and governance.
    If confirmed, I will invigorate America's principled 
efforts in each of these areas and work with all of our 
partners to resolve the challenges the South Caucasus region 
continues to face.
    Azerbaijan has long been a stalwart partner on 
international security. After the attacks of September 11, 
Azerbaijan was among the first country to extend support and 
offer close cooperation to combat terrorism. I saw firsthand 
Azerbaijan's contributions to peace and security while serving 
as NATO's Deputy Senior Civilian Representative in Afghanistan.
    And earlier this year, Azerbaijan stepped up its commitment 
to that mission in Afghanistan, where it now deploys 120 
troops. Azerbaijan is also part of the Northern Distribution 
Network for supporting U.S. and NATO operations in Afghanistan. 
If confirmed, I will sustain the security relationship and 
enhance our cooperation in areas such as border security, 
counter-proliferation, and countering human trafficking.
    The United States and Azerbaijan have also enjoyed more 
than 20 years of cooperation on energy security that has 
produced some real wins for the longstanding U.S. policy of 
diversifying energy routes and sources for European and global 
markets. The Baku-Tbilisi-Ceyhan oil pipeline was an early 
success for energy diplomacy.
    Today, the soon-to-be-realized southern gas corridor, 
stretching from Azerbaijan to Italy, is more important than 
ever for European energy security. If confirmed, I will work 
with Azerbaijan to realize the full potential of its energy 
resources, expand the southern gas corridor, and bolster 
critical energy infrastructure protection.
    At the same time, if confirmed, I will support Azerbaijan's 
efforts to diversify its economy away from oil and gas. 
Azerbaijan is already a significant export market for U.S. 
airplanes, our farm equipment, and other goods and services. If 
confirmed, I will promote a level playing field and transparent 
business environment to foster economic development, and create 
even more opportunities for U.S. companies.
    Azerbaijan's integration with the West, however, can and 
must go beyond pipelines, exports, and security cooperation. 
The United States must continue to work closely with Azerbaijan 
on advancing democratic and open economic principles through 
strong rule of law, transparency, and the protection of human 
rights and dignity.
    It is in Azerbaijan's own interest to undertake these 
reforms, both to ensure its long-term stability, and to realize 
the full potential of its people and economy. Democracies 
thrive only when bolstered by an independent judiciary, respect 
for the rule of law, a free media, a vibrant civil society, 
political pluralism, and a democratic electoral process, and 
respect for human rights and fundamental freedoms.
    As affirmed in the President's national security strategy, 
these principles form the foundation of our most enduring 
partnerships. As Azerbaijan advances along this path, our 
bilateral relationship will grow even stronger. Throughout my 
career I have worked to promote these core U.S. values by 
helping countries progress in their transitions to democratic 
governance.
    If confirmed, I will bring all of these experiences to bear 
in developing a dialogue with Azerbaijan, based on mutual 
respect and confidence. I will also meet with a wide range of 
Azerbaijani society to share American values and learn about 
Azerbaijan's rich history and culture.
    Finally, but no less importantly, Azerbaijan is a key 
player in the region's peace and stability. There is no higher 
priority for achieving a more secure and prosperous future for 
the South Caucasus than the peaceful settlement of the Nagorno-
Karabakh conflict.
    As cochair of the OSCE Minsk Group process, the United 
States continues to work with all sides to achieve a peaceful, 
lasting negotiated settlement of the conflict, based on the 
principles of the U.N. Charter and the Helsinki Final Act, 
including the nonuse of force or threat of force, territorial 
integrity, and the equal rights and self-determination of 
peoples.
    If confirmed, I will have the honor of advancing all of 
these objectives, while safeguarding American citizens, and 
ensuring responsible stewardship of taxpayer dollars.
    Thank you for considering my nomination, and I look forward 
to your questions.
    [Mr. Litzenberger's prepared statement follows:]


              Prepared Statement of Earle D. Litzenberger

    Mr. Chairman, Ranking Member Murphy, and distinguished members of 
the committee: I come before you today, both honored and humbled, to 
testify as President Trump's nominee to be the next U.S. Ambassador to 
Azerbaijan. I am grateful to the President and Secretary Pompeo for the 
confidence they have placed in me. If confirmed, I pledge to work 
closely with this committee and all Members of Congress to advance U.S. 
interests in Azerbaijan.
    I would like to thank my family for supporting, and sharing, my 34-
year career in the Foreign Service across much of the globe. My wife, 
Marianne, and daughter, Ashley, have joined me here today. Our son, 
Andrew, and daughter-in-law, Tara, unfortunately are unable to be here.
    Over the course of my career, I have dedicated myself to advancing 
U.S. foreign policy interests, promoting U.S. values, and safeguarding 
our national security. As the Deputy Chief of Mission and--prior to the 
arrival of Ambassador Kay Bailey Hutchison--Charge d'Affaires at the 
U.S. Mission to NATO, I worked closely with our Allies during the 
largest reinforcement of NATO's collective defense since the end of the 
Cold War while promoting more equitable burden sharing in the Alliance.
    In my current role as Senior Advisor in the State Department's 
Bureau of Political-Military Affairs, I have worked closely with the 
Defense Department and the broader U.S. interagency to support Allied 
and partner nations, and promote security in regions of vital 
importance to U.S. national security.
    Situated astride a millennia-old geographic and cultural 
crossroads, the South Caucasus is one of these key regions. 
Azerbaijan--the only country to border both Iran and Russia--is an 
important U.S. partner. Our relationship is important not just to our 
two countries, but to Azerbaijan's neighbors and the wider region. We 
stand only to gain from a stable, democratic, peaceful, and prosperous 
Azerbaijan strategically linked to the United States and our European 
friends and Allies.
    Since the establishment of diplomatic relations in 1992, our 
cooperation with Azerbaijan has centered on three interrelated and 
equally important areas: security; energy and economic growth; and 
democracy and governance. If confirmed, I will invigorate America's 
principled efforts in each of these areas and work energetically with 
all of our partners to resolve the challenges that the South Caucasus 
region continues to face.
    Azerbaijan has long been a stalwart partner on international 
security. After the attacks of September 11, then-Azerbaijani President 
Heydar Aliyev was among the first to extend support and to offer close 
cooperation to combat terrorism. That cooperation continues today. I 
saw firsthand Azerbaijan's contributions to peace and security in 
Afghanistan while serving as NATO's Deputy Senior Civilian 
Representative in Kabul from 2013 to 2014. Earlier this year, 
Azerbaijan stepped up its commitment to NATO's Resolute Support Mission 
in Afghanistan, where it now has 120 service members deployed shoulder-
to-shoulder with U.S. and Allied personnel. Azerbaijan also supports 
the international community's commitment to Afghanistan as part of the 
Northern Distribution Network for supporting U.S. and NATO operations. 
If confirmed, I will sustain these crucial aspects of our security 
relationship and work to enhance cooperation in areas such as border 
security, counter-proliferation, and countering human trafficking.
    The United States and Azerbaijan also have enjoyed more than twenty 
years of cooperation on energy security that has produced real wins for 
the longstanding U.S. policy of diversifying energy routes and sources 
for European and global markets. At the U.S. Embassy in Kazakhstan in 
the late 1990s, I was directly involved in our effort to support the 
establishment of the Baku-Tbilisi-Ceyhan oil pipeline, an early success 
for energy diplomacy that brought Azerbaijani and Central Asian oil to 
Western markets. Today, the soon-to-be-realized Southern Gas Corridor, 
stretching from Azerbaijan to Italy, is more important than ever in 
advancing European energy security. If confirmed, I will continue to 
work with Azerbaijan to realize the full potential of its energy 
resources, expand the Southern Gas Corridor, and bolster critical 
energy infrastructure protection.
    At the same time, if confirmed, I will support Azerbaijan's efforts 
to diversify its economy away from oil and gas. Azerbaijan is already a 
significant export market for U.S. airplanes, farm equipment, 
machinery, and other goods and services, but we can create even more 
opportunities for U.S. companies. If confirmed, I will promote a level 
playing field and transparent business environment to--in the words of 
Secretary Pompeo--``foster good, productive capitalism'' so that 
American firms can succeed, ``local communities can flourish, and 
bilateral partnerships can grow.''
    Azerbaijan's integration with the West can and must go beyond 
energy pipelines, exports, and security cooperation. The United States 
must also continue to work closely with Azerbaijan on advancing 
democratic and open economic principles through strong rule of law, 
transparency, and the protection of human rights and dignity. It is in 
Azerbaijan's interest to undertake these reforms, both to ensure long-
term stability and to unleash the full potential of its people and 
economy. Democracies thrive only when bolstered by an independent 
judiciary, respect for the rule of law, a free media, a vibrant civil 
society, pluralism, democratic electoral processes, and respect for 
human rights and fundamental freedoms.
    As affirmed in the President's National Security Strategy, these 
principles form the foundation of our most enduring partnerships. As 
Azerbaijan advances along this path, our bilateral relationship will 
grow even stronger. As Deputy Chief of Mission in Kyrgyzstan and 
Serbia, and throughout my career, I have worked to promote these core 
U.S. values by helping countries progress in their transition to 
democratic governance. If confirmed, I will bring all of these 
experiences to bear in developing a robust dialogue on these issues 
with Azerbaijan based on mutual respect and confidence. I will also 
seek to meet with a wide range of Azerbaijani society, in order to 
share American values and learn more about Azerbaijan's rich history 
and culture.
    Finally, but no less importantly, Azerbaijan is a key player in the 
region's peace and stability. There is no higher priority for achieving 
a more secure and prosperous future for the South Caucasus than the 
peaceful settlement of the Nagorno-Karabakh conflict. As Co-Chair of 
the OSCE Minsk Group, the United States continues to work with all 
sides to achieve a peaceful, lasting negotiated settlement of the 
conflict based on the principles of the U.N. Charter and the Helsinki 
Final Act, including the non-use of force or threat of force, 
territorial integrity, and the equal rights and self-determination of 
peoples. If confirmed, I will support the administration's commitment 
to achieving this goal.
    On the recent centennial anniversary of the founding of the 
Azerbaijan Democratic Republic, Secretary Pompeo looked forward to 
deepening America's cooperation with Azerbaijan on ``security, energy, 
and democratic governance'' with the aim of ``further [strengthening] 
ties between our countries.'' If confirmed, I will have the great honor 
of advancing these objectives while safeguarding American citizens and 
ensuring responsible stewardship of U.S. taxpayer dollars. Thank you 
for considering my nomination, and I look forward to your questions.


    Senator Johnson. Thank you, Mr. Litzenberger.
    Our fourth nominee is Mr. Eric George Nelson. Mr. Nelson is 
the President's nominee to be the U.S. Ambassador to Bosnia and 
Herzegovina.
    Mr. Nelson is a member of the Senior Foreign Service, with 
the rank of minister counselor. He is currently deputy 
executive secretary and director of the Executive Office of the 
Executive Secretariat, a position he has held since 2015.
    Mr. Nelson has served in seven U.S. missions overseas, 
including as deputy chief of mission in Costa Rica, and general 
counsel in Munich.
    He has received numerous awards for effective leadership, 
and speaks Spanish, German, and Italian.
    Mr. Nelson.

        STATEMENT OF ERIC GEORGE NELSON, NOMINEE TO BE 
           U.S. AMBASSADOR TO BOSNIA AND HERZEGOVINA

    Mr. Nelson. Good morning, Chairman Johnson, Ranking Member 
Murphy, Senator Shaheen, Senator Kaine. It is an honor to 
appear before the committee today as the President's nominee to 
serve as Ambassador to Bosnia and Herzegovina.
    I am grateful for the confidence the President and the 
Secretary of State have placed in me. I am accompanied today by 
my partner, Filippo Tattoni, and I wish to recognize today the 
great sacrifices he has made to support me in my career.
    I am proud that my nomination is an example of how much the 
United States values diversity. America's diversity is 
fundamental to our freedoms, and makes us the innovative and 
dynamic nation we are. Bosnia and Herzegovina shares this 
essential characteristic with a centuries-long history of 
religious coexistence.
    I have been privileged to pursue a career in public 
service, beginning 35 years ago as a Peace Corps volunteer in 
Liberia, and continuing in the Foreign Service across Europe, 
Latin America, and Pakistan. My grandparents' and parents' 
examples of service continue to inspire me.
    My Slovak grandparents ministered to Lutheran congregations 
across Pennsylvania and Ohio. And my Swedish and Danish 
grandparents survived the Great Depression, serving customers 
in their small New Jersey diner. My mother, Eleanor, watching 
today from Texas, was a school teacher, and my late father, 
Herbert, steered his corporate career into decades of 
philanthropic and community service.
    If confirmed, I will proudly lead a successful interagency 
team in Bosnia Herzegovina, and will look for every opportunity 
to shine a spotlight on their excellence in service to America.
    The United States is safer and more prosperous when Europe 
is indeed stable and prosperous. When 100,000 Bosnians died and 
more than 1 million fled the Bosnian War of 1992 to 1995, the 
United States intervened with force and diplomacy to end the 
war. As a guarantor of the Dayton Peace Accords, the United 
States remains firmly committed to Bosnia and Herzegovina's 
sovereignty and territorial integrity.
    Twenty-three years of relative peace has been a great 
achievement, but we cannot take this for granted. The surest 
path to securing a promising future is integration into Euro-
Atlantic institutions. Unfortunately, too many politicians 
continue to put zero-sum ethnic nationalism and their personal 
enrichment ahead of critical reforms.
    If confirmed, I will focus the work of the embassy on 
several priority areas. Firstly, expanding prosperity. A weak 
economy and endemic corruption undermines stability. Reforms 
are critical to reduce labor taxes, improve the ease of opening 
a business, and privatize bloated state enterprises. If 
confirmed, I will press for standards that ensure Bosnia 
Herzegovina can be an attractive destination for U.S. exports 
and direct investment.
    Secondly, if confirmed, I will promote effective government 
and rule of law. Sadly, Transparency International ranks Bosnia 
Herzegovina as one of the most corrupt countries in Europe. I 
will continue our embassy's strong efforts to improve 
transparency and accountability. When local institutions fail 
to act, or if peace and stability are threatened, targeted 
sanctions can be an effective response.
    Our third priority will be improving security. The United 
States will continue our efforts to help Bosnia and Herzegovina 
to counter violent extremism, and malign foreign influence, 
strengthen law enforcement, and increase border security.
    The country is a committed partner on counterterrorism, and 
deploys with allied troops in Afghanistan. The United States 
supports Bosnia Herzegovina's continued progress towards NATO 
membership and Western democratic values.
    Fourth, if confirmed I will press the government of Bosnia 
and Herzegovina to further human rights. President Trump said 
in Warsaw last year, ``Above all, we value the dignity of every 
human life. We protect the rights of every person, and we share 
the hope of every soul to live in freedom.''
    The United States will advance democracy by promoting media 
freedom, religious liberty, and education reform. If confirmed, 
I will advocate for accountability for past atrocities and 
equal treatment before the law of all Bosnia Herzegovina 
citizens.
    I will strengthen our partnerships with civil society, 
private sector, and European partners, and I will be eager to 
work with all leaders in Bosnia and Herzegovina who share our 
goals and are ready to tackle corruption and implement reform.
    Mr. Chairman, I thank this committee and other members of 
Congress for your steadfast interest in Bosnia and Herzegovina. 
Thank you for your time, and I look forward to your questions.
    [Mr. Nelson's prepared statement follows:]


                Prepared Statement of Eric George Nelson

    Chairman Johnson, Ranking Member Murphy, it is an honor to appear 
before the committee today as the President's nominee to serve as 
Ambassador to Bosnia and Herzegovina. I am grateful for the confidence 
the President and the Secretary of State have placed in me and I hope 
to earn your trust as well. I am accompanied today by my partner, 
Filippo Tattoni, who like many other Foreign Service spouses, has 
sacrificed much to support me in my career and I wish to recognize 
that.
    I am proud that my nomination is an example of how much the United 
States values diversity. America's diversity is fundamental to our 
freedoms and makes us the innovative and dynamic nation we are. Bosnia 
and Herzegovina shares this essential characteristic with a centuries-
long history of religious coexistence.
    I have been privileged to pursue a career in public service, 
beginning 35 years ago as a Peace Corps Volunteer in Liberia and 
continuing in the Foreign Service across Europe, Latin America, and 
Pakistan. My grandparents' humble examples of service continue to 
inspire me. My Slovak grandparents ministered to Lutheran congregations 
across Pennsylvania and Ohio. And my Swedish and Danish grandparents 
survived the Great Depression tirelessly serving customers in their 
diner in New Jersey. If confirmed, I will proudly lead a dedicated and 
successful interagency team in Bosnia. I will look for every 
opportunity to shine a spotlight on their excellence in service to 
America.
    The United States is safer and more prosperous when Europe is 
indeed stable and prosperous. When 100,000 Bosnians died and two 
million fled the Bosnian War of 1992-95, the United States intervened 
with force and diplomacy to end the war.
    As a guarantor of the Dayton Peace Accords, the United States 
remains firmly committed to Bosnia and Herzegovina's sovereignty and 
territorial integrity. Twenty-three years of relative peace has been a 
great achievement, but we cannot take this for granted. The surest path 
to securing a promising future is integration into Euro-Atlantic 
institutions. Unfortunately, too many politicians continue to put zero-
sum ethnic nationalism and their personal enrichment ahead of critical 
reforms.
    If confirmed, I will focus the work of the Embassy on several 
priority areas:

   Firstly, expanding prosperity.

    A weak economy and endemic corruption undermine stability. Reforms 
are critical to reduce labor taxes, improve the ease of opening a 
business, and privatize bloated state enterprises. If confirmed, I will 
press for standards that ensure Bosnia and Herzegovina can be an 
attractive destination for U.S. exports and direct investment.

   Secondly, if confirmed I will promote effective government and rule 
        of law.

    Sadly, Transparency International ranks Bosnia and Herzegovina as 
one of the most corrupt countries in Europe. I will continue our 
Embassy's strong efforts to improve transparency and accountability. 
When local institutions fail to act, or if peace and stability are 
threatened, targeted sanctions can be an effective response.

   Our third priority will be improving security.

    The United States will continue our efforts to counter malign 
foreign influence and violent extremism, strengthen law enforcement, 
and increase border security.
    Bosnia and Herzegovina is a committed partner on counterterrorism 
and deploys with Allied troops in Afghanistan. The United States 
supports Bosnia's continued progress towards NATO membership and 
Western democratic values.

   Fourth, if confirmed I will press the Government of Bosnia and 
        Herzegovina to further human rights.

    President Trump said in Warsaw last year, ``Above all, we value the 
dignity of every human life, we protect the rights of every person, and 
we share the hope of every soul to live in freedom.''
    The United States will advance democracy by promoting media 
freedom, religious liberty, and education reform. If confirmed, I will 
advocate for accountability for past atrocities and equal treatment 
before the law of all Bosnia's citizens.
    We need strong partnerships to help Bosnia and Herzegovina achieve 
peace with progress. If confirmed, I will combine forces with civil 
society, private sector, and our European partners. I will be eager to 
work with all leaders in Bosnia and Herzegovina who share our goals and 
are ready to tackle corruption and implement reform.
    Mr. Chairman, I thank this committee and other members of Congress 
for their steadfast interest in Bosnia and Herzegovina.
    I thank you for your time and I look forward to your questions.


    Senator Johnson. Thank you, Mr. Nelson.
    Out of respect for my colleagues' time, I will defer my 
questions to the end.
    Senator Murphy.
    Voice. Not here.
    Senator Johnson. Senator Kaine.
    Senator Kaine. Thank you. Well, this never happens. 
[Laughter.]
    Senator Kaine. I love this. Thank you, and congratulations 
to each of you for your nominations. I think you are all very 
qualified for these positions.
    First, a question, I am not sure if you will have answer to 
it, if you have knowledge to answer it, but I was very 
disturbed when I read the news the other day that the State 
Department was changing a policy to say that members of the 
Foreign Diplomatic Corps coming to the United States would no 
longer be able to get a visa for same-sex partners. Many 
countries do not allow same-sex marriage, and the previous 
policy had been that we would grant a visa to same-sex partners 
of visiting members of the diplomatic corps, and the 
announcement occurred the other day that that is being stopped.
    Are you aware, was that decision made purely within the 
State Department, or was it promoted by the White House, or 
others within the administration? Do any of you have knowledge 
of this?
    Mr. Nelson. I am not aware of how that decision was 
reached, but I have read the briefings on it. I understand that 
the department made the decision based on achieving equality to 
following the Obergefell decision that recognized same-sex 
marriage--same-sex marriage in the United States.
    The Department, before that time, had been forward- leaning 
in trying to accommodate same-sex partners coming to the U.S. 
They are now creating equivalence between--for same-sex and 
opposite-sex marriages, and they will continue to apply 
reciprocity when receiving states accept our families, our 
same-sex partners, and provide them privileges and immunities. 
The United States, I understand, is prepared to do the same.
    Senator Kaine. Do any of you have additional facts that you 
could add to how the decision was made? Was it just within the 
State Department, or was it promoted more broadly by the 
administration?
    Are any of you aware of whether there were any instances of 
the previous policy causing any problems for the United States? 
Sometimes a change is made because of policy that is causing a 
problem, and the problem needs to be fixed.
    Was this change, to your knowledge, driven by any problem 
with the previous policy?
    Ambassador Garber. Senator, I am not familiar with the 
reasons behind the change in policy.
    Senator Kaine. And I know Dr. Gunter is not career State, 
but I am assuming the others--you are not aware of any problems 
that had been experienced under the previous rule. Ambassador--
--
    Mr. Litzenberger. Senator, I am not.
    Senator Kaine. Okay. Thank you.
    Ambassador Garber, let me ask you a question. I am often in 
these hearings. I am on the Armed Services committee, too. So I 
use these hearings to make me a better Armed Services member, 
and vice-versa. And I have a question about Cyprus dealing with 
mil-to-mil cooperation.
    So historically, the U.S., in trying to remain balanced and 
objective in the ongoing dispute, and the negotiations between 
the two Cypriot communities, has refrained from providing 
military equipment to the Republic, with a very few exceptions 
for policing, and also search and rescue.
    There have been some in Congress that have advocated 
lifting that restriction. I do not know enough about the issue 
actually to have an opinion on it myself, but I would like to 
get educated.
    There have also been reports that during a recent visit to 
Cyprus, U.S. military officials raised the potential use of 
Cypriot military bases as a backup to U.S. presence at 
Incirlik, Turkey.
    What can you share with the committee about these issues? 
Are you aware of discussions with the republic about possibly 
greater use of military bases in the republic by the United 
States? And what would be your thought about that?
    Ambassador Garber. Thank you very much for that question, 
Senator.
    You are right. Longstanding U.S. policy, with regard to 
arms exports has been to avoid further militarization of the 
island. We are, however, looking at systematically 
strengthening our security relationship with the government of 
Cyprus. Cyprus has been a very good partner on 
counterterrorism, maritime, and border security, as well as, I 
mentioned in my testimony, nonproliferation. We look to build 
on those efforts systematically to help to strengthen it.
    With regard to the bases, the UK sovereign bases are UK 
sovereign territories. So as such, that is an issue that falls 
between the United Kingdom and the United States.
    Senator Kaine. But you are not aware of--there had been 
reports of some discussions at the mil-to-mil level about the 
potential use of those bases. Have you been read into those 
discussions? Are you aware what, if any, progress or items had 
been discussed in that area?
    Ambassador Garber. I have not been specifically read into 
the discussions at this point. If confirmed, I look forward to 
learning more. Thank you.
    Senator Kaine. Great. Great. Thank you so much.
    Mr. Chair, that is all the questions I have. Appreciate it.
    Senator Johnson. Senator Murphy.
    Senator Murphy. Thank you very much. Thanks all for your 
testimony. Thanks for being here, your willingness to serve.
    I wanted maybe to start with you, Mr. Litzenberger, and 
actually draw on some of your experience in Serbia. We are 
often asking you questions about places that you have not been 
to yet. So maybe I will ask you about a question where you have 
been. Senator Johnson and I both have spent a lot of time 
thinking about the Balkans, worry a lot about the general 
instability, and the desire of the Kremlin to be more 
influential.
    During my last trip, which was admittedly several years 
ago, our ambassador was begging for additional dollars to help 
stand-up exchange programs in Belgrade, which had been wildly 
successful. I went and sat for an hour or so with a bunch of 
Serbian leaders, who had spent time in the United States. And 
you could just see, you could feel the difference it made for 
U.S.-Serbian relationships to have folks who knew something 
about our country. It was a relatively small amount of money, 
and it was being pulled back at the time.
    Maybe you can share a little bit of your experience, having 
been to D.C. and Belgrade as to where the United States could 
step up its assistance in the Balkans and in the Caucasus, 
frankly, to strengthen the vulnerabilities that the Kremlin or 
others might want to exploit.
    They were, frankly, begging, and continue to beg for more 
American presence there. Not in the billions of dollars, but in 
the millions of dollars, and it seems like we still have not 
figured out how to answer that call.
    Mr. Litzenberger. Senator, thank you for that question, and 
I am pleased to be able to talk to you about my experience in 
Serbia. But actually, it is my experience in all the posts I 
have been in overseas. The importance, and power, and effect of 
our exchange programs cannot be overemphasized.
    When citizens, potential leaders, future leaders of 
countries have the opportunity to visit the United States, to 
study in the United States, to travel in the United States, and 
learn about our society and our culture, and see it firsthand, 
they can form their own opinions and impressions. They are not 
being influenced by any outside players. And most of the time, 
I would say the vast majority of the time, they come back 
hugely impressed by this great country of ours.
    So I have long been a strong believer in the importance of 
exchange programs, both the educational and cultural exchange. 
And also in our security cooperation toolkit, we have a program 
called IMET, International Military Education and Training, 
which does a similar thing to help build military-to-military 
relationships with countries around the world, and enhance our 
security cooperation.
    The reality is that assistance funding decisions have to be 
made in the context of competing priorities, and in the case of 
the European area of shrinking assistance budgets. So 
priorities come into play, and we have to make some tradeoffs 
between where we want to focus our assistance.
    Exchanges are important. Programs that promote rule of law 
that support civil society, that help support human rights 
activists in countries like Serbia, and in countries like 
Azerbaijan, are hugely important to helping us develop that 
dimension of our bilateral relationship with these countries.
    Senator Murphy. It is just so strange to me that we force 
the Department of State, and in particular, the European 
section to make these tradeoffs, to accept the inevitability of 
shrinking aid budgets, when we do not expect the Department of 
Defense to do the same. We give them record increases in 
funding. We spend $4 billion on a European reassurance 
initiative, and then we ask our ambassadors in the Balkans to 
beg for $20,000 additional for exchange programs. So I 
appreciate your answer.
    Let me go to you, Mr. Nelson. Boy, this is a--this is a 
tough job you are undertaking. I mentioned that there is real 
desire for American leadership there.
    I wanted to ask you about the issue of land swaps. This is 
a pretty hot topic in the region, in general, and I am sure you 
are aware of these recent discussions around ``border 
adjustments'' between Serbia and Kosovo.
    While the decision is ultimately up to the leaders in 
Belgrade and Pristina, many of us are worried that a precedent 
of changing borders might have a real destabilizing impact on 
places like Bosnia, where you have got a fragile political 
ecosystem as is.
    Are you going into this with the idea that America is 
committed to Bosnia's territorial integrity, and do you think 
that there are legitimate concerns with some of the proposals 
out there to shift borders, and the follow-on effects that it 
could have as others try to think about ways in which they 
could move their borders to capture different ethnic 
populations that they would like to have inside their national 
boundaries?
    Mr. Nelson. Thank you, Senator Murphy.
    Yes, I am going in with a clear commitment to the United 
States support of Bosnia's territorial integrity and 
sovereignty. The discussions between Kosovo and Serbia, two 
sovereign states, to agree on normalizing their relations are 
important, are important for the region. We support the EU-
facilitated dialog.
    But it is important to make clear that there is no parallel 
in Bosnia Herzegovina. Now where sub-state entities have 
discussed secession, we remain steadfast in our support of 
Bosnia's territorial integrity, and we will continue to work 
with our partners to keep Bosnia moving forward, and focused on 
unification within the European Union. That is the future that 
Bosnia should be looking to.
    Senator Murphy. I am all for creative solutions, and 
frankly, the chairman knows more about this subject than I do. 
I just worry that if it is done wrong, it could lead to more, 
rather than less, destabilization. But I remain open to folks 
using some creative ideas to try to solve century's old 
problems.
    Ambassador Garber, can you talk a little bit about why 
Russian money laundering in Cyprus should matter to America. 
This is something that we have spent a lot of time thinking 
about, and looking at. And Treasury is obviously involved in 
this, but it is still occurring. The Wall Street Journal called 
Cyprus Russia's favorite money haven.
    Why does this matter to us, and what can the next 
ambassador do about it?
    Ambassador Garber. Thank you very much for that question, 
Senator Murphy.
    Russian money laundering is a serious concern, and the 
integrity of Cyprus's financial system is a serious concern for 
the United States, so it is not abused by bad actors, to be 
able to have that happen for illicit means.
    As you noted, sir, the Republic of Cyprus has been 
cooperating with the U.S. Treasury on strengthening its anti-
money laundering regime. I dealt a lot with this issue in 
Latvia as well. Latvian banks have also been used for money 
laundering in the past. And I look forward to bringing what I 
have learned from that experience to bear should I be confirmed 
as Ambassador to the Republic of Cyprus.
    We have been engaging government regulators, the private 
sector, trying to make clear the seriousness of it, which we 
will be enforcing U.S. sanctions, and our intention to pursue 
entities that facilitate money laundering.
    It is very important for the future prosperity of Cyprus 
that it has a very strong banking system, and one that cannot 
be abused by illicit actors.
    Senator Murphy. Great. Thank you for that answer.
    Dr. Gunter, none of these posts are easy, but yours is the 
easiest amongst them. We have got a great bilateral 
relationship with Iceland, and you will be the beneficiary of 
some fantastic work by previous ambassadors.
    So I wanted to actually ask you a question about some of 
your prior work in the foreign relations space. You have been a 
board member of the Republican Jewish Coalition Organization, 
founded by Sheldon Adelson, and I want to ask you a sincere 
question about--your thoughts about the state of the political 
discussion surrounding support for Israel.
    When I got to Congress 12 years ago there was very little 
political advantage that one party tried to seek over the other 
when it came to the issue of Israel. We had our differences, 
and there were certainly groups that existed working just with 
the republicans and just with democrats. But in the time that I 
have been here I have seen a rapid escalation of the electoral 
politics that get played out around the issue of Israel. And 
all of a sudden, whether the critiques are fair or not of one 
party or the other, all of a sudden you see lots of TV ads 
right now trying to expose vulnerabilities that one party may 
have over their support or lack thereof for Israel.
    And I really worry that this sort of pulls apart one of the 
discussions that tended to be fairly nonpartisan here. It 
tended to be one of the things in this space that united us, 
and now all of a sudden there is political gain to be had. I 
may draw issue with some of the donors and supporters of the 
group that you belong to, but I understand this plays out on 
both sides.
    So as you have worked in this space, do you worry about 
this--about the issue of Israel becoming politicized, becoming 
something that all of a sudden is inside our electoral politics 
in a way that it wasn't a couple decades ago?
    Dr. Gunter. Thank you for the question, Senator. It is a 
very good one.
    And like many of the issues that we face today in the 
current political environment, I worry. I worry because I am an 
American first. It is not a D or not an R issue. It is an A 
issue, that we are all Americans. And I worry when things 
become so politicized, are we forgetting, quite frankly, why we 
are all here today, and what unifies us, instead of focusing so 
much on what divides us.
    So I view my role coming to Iceland as providing for the 
prosperity and the protection of all Americans through building 
strong relationships with the Icelandic government, with 
Icelandic companies, and most importantly, the Icelandic 
people. And I come there not as a D or an R, I come there as a 
double A, representing all Americans. And for me, that is 
extremely important.
    Thank you.
    Senator Murphy. I appreciate that answer. I take it at your 
word. We have sent at least ambassador to Europe who has not 
lost his political stripes upon taking a very important post. 
And so I trust that you will take a different path. Thank you 
for that good answer.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. 
Congratulations to all of your nominations. I have a particular 
interest with two of the nominees, so let me address them.
    Ambassador Garber, I appreciate our visit yesterday, and 
our discussion. I am one who believes that in cases such as 
Cyprus, unless we reconcile ourselves with the past, it is 
difficult to move forward.
    So to that end, do you acknowledge that there was an 
invasion of Cyprus, and that Turkey should seek to withdraw its 
troops?
    Ambassador Garber. Senator, thank you very much for that 
question, and I think it is right to recall the tragic events--
you are right to recall the tragic events of 1974.
    In 1974, following these tragic events, the United States 
supported U.N. General Assembly Resolution 3212. And this 
called for both sides to freely achieve a mutually acceptable 
political settlement on the island. This has led the United 
States for many years to support Cypriot-led U.N.-facilitated 
negotiations to reunite the island as a bi-zonal, bicommunal 
federation.
    We seek to use language that enables the United States to 
play an effective role, and we have played an effective role in 
helping to facilitate these discussions. We continue to see a 
settlement on the island as the best reason for security.
    Senator Menendez. Well, I appreciate that answer to a 
question that I did not pose. The question that I posed was not 
what do we seek in terms of a settlement. The question that I 
posed is whether or not Turkish troops invaded Northern Cyprus, 
and are still there in Northern Cyprus, occupying Northern 
Cyprus.
    I think if we cannot accept a factual reality, then we are 
in trouble in terms of trying to figure out how do we move 
forward. So is it true that Turkish troops ultimately crossed 
into Northern Cyprus, and are presently there, continuing, 
since 1974?
    Ambassador Garber. The Turkish intervention on the island 
led to the events of the tragic divisions that we have today. I 
think the issue of the Turkish troops is one of the most 
sensitive issues in the negotiations, and one that will be part 
of a final settlement----
    Senator Menendez. Do you acknowledge that there are Turkish 
troops in Northern Cyprus?
    Ambassador Garber. Do I acknowledge that there--thank you, 
Senator. Do I acknowledge that there are Turkish troops on 
Northern Cyprus?
    Senator Menendez. Yes. Yes or no?
    Ambassador Garber. Yes, there are Turkish troops in----
    Senator Menendez. Thank you. You know, the State 
Department--I appreciate the nuances, but there are certain 
things that are just real. Turkish troops, which were not 
existent prior to this time, invaded Northern Cyprus, and have 
continued to be there, and makes it one of the most militarized 
places in the world. That is just a fact.
    Now dealing with that fact, as we tried to seek a bi-zonal, 
bicommunal federation, where people can live in peace and 
security, is an important fact. So, you know, I gather that you 
are constrained, because I know you have an incredibly 
successful history, and a career history at the department, but 
this always baffles me, in terms of not just recognizing simple 
facts.
    Let me ask you this. If confirmed, will you work to ensure 
access to Turkish military zones on the island, where missing 
Greek and Turkish Cypriot persons may be buried?
    Ambassador Garber. Thank you for that question, Senator.
    The issue of missing persons is a very important issue of 
concern to the United States. If confirmed, I will work to make 
sure that the Committee on Missing Persons is able to have 
access to all burial sites----
    Senator Menendez. Hm-hmm.
    Ms. Garber.--and expeditiously conclude its work.
    Senator Menendez. I heard your previous answer to the 
question about lifting the arms embargo. I am one of those who 
believes we should lift the U.S. arms embargo on Cyprus. This 
is part of the European Union. Cyprus plays a critical role 
with us in so many different ways, in intelligence sharing. 
When we have had to airlift Americans out of other areas in the 
region, Cyprus has been our landing point. They have been 
receptive. They have been helpful. I believe we should lift the 
arms embargo against Cyprus.
    Let me ask you finally, do you believe that the Cypriot 
government has the right to exploration in its exclusive 
economic zone in accordance with international law, and if you 
are confirmed, will you defend that right?
    Ambassador Garber. Senator, thank you very much for that 
question.
    The United States recognizes the right of the Republic of 
Cyprus to the resources and its exclusive economic zone. We 
believe that they should be shared equitably in the context of 
an overall settlement. The energy has the ability to promote 
greater regional cooperation, and we believe a settlement will 
facilitate not only the development of these resources, but 
their ability to work to the benefits of all Cypriots.
    Senator Menendez. Mr. Litzenberger, I have some questions 
for you.
    I am concerned by Azerbaijan's bellicose rhetoric and 
sporadic outbursts of violence along the Nagorno-Karabakh line 
of contact, which undermine diplomatic efforts to peacefully 
resolve the conflict.
    If confirmed, what steps will you take to urge the 
Azerbaijani government to step back from its threatening 
behavior, and permit necessary monitoring along the line of 
contact.
    Mr. Litzenberger. Thank you very much, Senator.
    As one of the three cochairs of the Minsk Group process 
that is working to achieve a peaceful settlement to the 
Nagorno-Karabakh conflict, we are working along the lines of 
three principles. One is the non-use of force, and the non-
threat of the use of force. The second is the respect for 
territorial integrity. And the third is the rights of peoples 
to self-determination. All three of those are important. Any 
agreement or settlement that does not fully take all three into 
account is unlikely to succeed.
    For that reason, all of the cochairs, the U.S. especially, 
condemns any violence and any threat of the use of violence 
along the line of contact. It undermines the peace process. It 
violates the 1994 ceasefire, and is very unhelpful.
    So if confirmed, I will continue to support the efforts of 
Andrew Schofer, who is our U.S. cochair to the Minsk Group 
process, and will urge the government of Azerbaijan to work 
cooperatively to help settle this conflict.
    Senator Menendez. Hm-hmm. So I will take that, that as part 
of your overall answer, that you would urge all the parties, 
but certainly, since you are going to be the Ambassador of the 
United States to Azerbaijan, to urge the Azerbaijanis to step 
back from any threatening behavior that could disrupt the line 
of contact. Is that a fair statement?
    Mr. Litzenberger. That's a fair statement, sir.
    Senator Menendez. Do you support the provision of security 
assistance to Azerbaijan, and should it be tied to progress 
towards a peaceful settlement of the Nagorno-Karabakh conflict, 
or to progress on accountability for human rights abuses 
committed by Azerbaijani security forces?
    Mr. Litzenberger. Thank you, Senator, for that question.
    The U.S. does provide some security assistance to 
Azerbaijan, and we do it because it directly serves U.S. 
national interests. Our security cooperation is focused in 
areas such as reinforcing Azerbaijan's border security along 
its southern border with Iran, clearly in our interest, towards 
enhancing its maritime awareness, and the ability to secure and 
safeguard its important energy infrastructure in the Caspian 
Sea. That is also clearly in our interest, as we try to support 
and help Azerbaijan to develop western export routes to get its 
energy resources to European markets, and reduce Europe's 
dependence on Russian energy sources.
    And we also focus our security assistance on 
counterterrorism, training, and capabilities to combat violent 
extremism, and the threat of violent extremism. So those are 
all core U.S. security interests. Now in----
    Senator Menendez. I appreciate that.
    Mr. Litzenberger. Senator, in carrying out all of this 
assistance, we are very careful to ensure that nothing that we 
do or provide to Azerbaijan undermines the effort to reach a 
peaceful settlement of the Nagorno-Karabakh conflict.
    Senator Menendez. Hm-hmm. And as many other places 
involved--I will just end on this, Mr. Chairman. And there are 
many other places in the world where we provide security 
assistance. One of the concerns of this committee, which has 
jurisdiction over arm sales, and other forms of assistance, is 
that while all of the stated reasons you gave me as to why we 
provide security assistance to Azerbaijan may be very valuable, 
we also do not want to see human rights abuses by the very 
forces that we arm.
    So will you commit yourself to making sure that that is 
part of what you are looking at, if you are to be confirmed?
    Mr. Litzenberger. Senator, thank you. And absolutely. And I 
apologize. I failed to mention that an important component of 
the security assistance that we provide Azerbaijan includes 
training in human rights, and the respect for human rights. So 
this actually affords us another avenue to engage the 
government of Azerbaijan on this important issue.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Menendez.
    I spent time with all four nominees, pretty well got my 
questions answered. I do want to say that I think we have got 
some very well-qualified career Foreign Service going to very 
important countries. You know, we have opportunities here. I 
have spent a fair amount of time back and forth between Serbia 
and Kosovo.
    I think there is a desire to solve that problem, which 
would certainly help in terms of Bosnia and Herzegovina. There 
are opportunities between Azerbaijan and Armenia. Maybe we can 
work in Cyprus, and start providing greater stability in these 
longstanding conflicts.
    So, again, I really appreciate your willingness to serve in 
these regions. I certainly appreciate your families' 
willingness to work with you on that. It really is a shared 
sacrifice.
    I do want to, before I close this out, to talk about an 
area of agreement. I also am hugely supportive of these change 
programs, things like J-1 visas. I would say, one thing I find 
pretty interesting when you go into the Balkan region, one of 
the concerns is economic opportunities outside of their 
countries, and so their young people are leaving.
    I have always encouraged the leaders of those nations to 
identify those young people that for sure want to come back. 
You know, send those individuals to America to learn, whether 
it is in work programs, or study programs, or whatever. 
Military exchanges.
    So you have got bipartisan support. I mean anything we can 
do working together to make sure that the State Department has 
resources to encourage those things, but also just working with 
those governments to encourage that, make sure we get the visas 
for doing so. You've got two people up here that will work with 
you in all four of your nations that you represent to do just 
that.
    So that, again, I apologize for being late. I am mindful of 
the time. Again, thank you for your testimony, for your 
willingness to serve.
    The hearing record will remain open for statements or 
questions until the close of business on Friday, October 5th. 
This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
            Hon. Judith G. Garber by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career I have promoted human rights and 
democracy. As Ambassador to Latvia, I championed human rights and 
democracy with the Embassy team through programs to strengthen 
investigative journalism, support LGBT rights, and improve tolerance 
between ethnic Russian and Latvian communities. In my current role in 
the Bureau of Oceans and International Environmental and Scientific 
Affairs, our activities to ensure public participation on environmental 
issues associated with CAFTA-DR Agreement's environment chapter 
implementation have directly supported stronger governance and 
accountability. If confirmed, I will strongly support human rights and 
democracy in the Republic of Cyprus.

    Question 2. What issues are the most pressing challenges to 
democracy or human rights in Cyprus? Please be as specific as possible.

    Answer. If confirmed, I will urge the Republic of Cyprus to promote 
our shared democratic values, both in Cyprus and across Europe. If 
confirmed, and consistent with American values, I will continue to 
speak out strongly in support of human rights in Cyprus to include 
addressing such issues as trafficking in persons, and violence against 
members of ethnic and national groups.

    Question 3. What steps will you take--if confirmed--to support 
democratic, accountable governance in Cyprus? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. If confirmed, I will engage Cypriot officials to encourage 
democratic, accountable governance. The Republic of Cyprus is a 
constitutional republic and multiparty democracy, which chooses its 
leaders through free and fair elections. If confirmed, and consistent 
with our shared values, I will support efforts to combat corruption and 
promote accountable government. I believe that illicit financial 
activities undermine democratic institutions. Cyprus recognizes the 
importance of strong financial institutions, including the risks of 
Russian money laundering, and has been working with the United States 
to make improvements to its anti-money laundering regulations and 
regulatory oversight. Cyprus, nevertheless, needs to remain vigilant 
and take additional steps to combat the numerous challenges and risks 
posed by illicit money in the economy. We are encouraged by the 
progress local banks have made to boost compliance with regulations by 
culling suspicious accounts and hiring additional personnel to conduct 
due diligence; however, we believe more needs to be done. If confirmed, 
I will encourage the Republic of Cyprus to continue to strengthen its 
banking and anti-money laundering regulations and implement measures to 
limit the ease of shell company formation.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. By urging our partners to uphold their own commitments to a 
vibrant democracy, good governance, and the rule of law, we can 
strengthen Cypriot capabilities to counter threats to their security 
and sovereignty. We have worked, and will continue to work, to 
strengthen cooperation with Cyprus on counterterrorism, maritime and 
border security, and will continue to look for opportunities for 
cooperation in other areas of mutual interest.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S., and local human rights NGOs, and other members of civil society 
across Cyprus?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and Cyprus in continuation of the Embassy's practice of meeting 
civil society groups, from all communities on a regular basis and 
empowering their voices in policy debates. I will also meet with 
members of different religious groups and urge government officials to 
promote freedom of religion or belief for all Cypriots, consistent with 
our shared values.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I plan to continue the Embassy's practice of 
meeting with democratically-oriented political opposition figures. If 
confirmed, I will advocate for access and inclusivity for women, 
minorities, and youth within political parties.

    Question 7. Will you and your embassy team actively engage with 
Cyprus on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press across Cyprus?

    Answer. If confirmed, I will engage with Cypriot officials and 
members of the independent, local press across Cyprus on the issue of 
press freedom. As Ambassador to Latvia, I championed human rights and 
democracy with the Embassy team through programs to strengthen 
investigative journalism. If confirmed, I will engage Cypriot officials 
on any government efforts designed to control or undermine press 
freedom through legal or regulatory measures.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will actively engage both civil society and 
Cypriot officials to counter disinformation and propaganda disseminated 
by foreign state or non-state actors.

    Question 9. Will you and your embassy teams actively engage with 
Cyprus on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will actively engage both civil society and 
Cypriot officials on the rights of labor groups to organize, including 
for independent trade unions.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Cyprus, no 
matter their sexual orientation or gender identity?

    Answer. If confirmed, I will engage with Cypriot officials on 
matters of human rights and civil rights as a matter of priority. As 
Ambassador to Latvia, I championed human rights and democracy with the 
Embassy team through programs to strengthen investigative journalism, 
support LGBT rights, and improve tolerance between ethnic Russian and 
Latvian communities. If confirmed, I will strongly support human rights 
and defend the dignity of all people in Cyprus, no matter their sexual 
orientation or gender identity.

    Question 11. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression across Cyprus? Will 
you commit to meet with representatives of a diverse swath of religious 
groups and communities and to advocate for their ability to register 
and worship peacefully in the country?

    Answer. If confirmed, I will continue the Embassy's practice of 
meeting with members of different religious groups and encouraging 
government officials to promote freedom of religion or belief for all 
Cypriots. I will interact with civil society groups, from all faith 
communities on a regular basis and encourage their participation in 
policy debates. In addition, I will continue to dedicate resources to 
gathering information and publicizing the annual Report to Congress on 
International Religious Freedom, which sheds light on challenges to 
religious freedom around the world, including in Cyprus. By urging our 
partners to uphold their own commitments and the rule of law, we can 
strengthen Cypriot capabilities to counter threats to their security 
and sovereignty.

    Question 12. If confirmed, how will you seek to boost resilience to 
Russian Government meddling within Cyprus's institutions and civil 
society? What types of U.S. assistance do you see as most critical in 
this regard? How will you address corrupt political and economic 
influence or other illicit dealings with Cypriot actors that can 
increase space in the country for the Kremlin to push its agenda on the 
island and within the EU and NATO?

    Answer. The Republic of Cyprus is a democracy, an EU member, and a 
strategic partner. If confirmed, and consistent with our shared values, 
I look forward to working with Cypriots to increase resilience to any 
efforts to undermine Cypriot institutions and civil society.
    Recognizing the importance of strong financial institutions and the 
risks of money laundering, the Republic of Cyprus has been working with 
the United States to make improvements to its anti-money laundering 
regulations and regulatory oversight. Cyprus still needs to take more 
steps to combat the numerous challenges and risks posed by illicit 
money in the economy. We are encouraged by the progress local banks 
have made to boost compliance with regulations by culling suspicious 
accounts and hiring additional personnel to conduct due diligence. If 
confirmed, I will encourage the Republic of Cyprus as a friend and a 
partner to continue to strengthen its banking and anti-money laundering 
regulations and implement measures to limit the ease of shell company 
formation.

    Question 13. More broadly, what do you see as most needed to 
effectively counter interference from Turkey, China, and other states 
that restricts Cypriot independence or stifles peaceful, democratic 
processes?

    Answer. The Republic of Cyprus is a democracy and a member of the 
European Union. If confirmed, I will reinforce United States support 
for Cyprus' democratic institutions and seek to further anchor Cyprus 
in the West. Strengthening domestic institutions and public faith in 
government can help, in part, to counter foreign malign influence. If 
confirmed, I will support efforts to combat corruption, fight money 
laundering and illicit finance, promote a free press, and encourage 
civic participation. Ultimately, I believe a unified Cyprus would be 
stronger and better able to counter external interference and preserve 
Cyprus' independence. To this end, I will continue to support Cypriot-
led, UN-facilitated efforts to reunify Cyprus as a bizonal, bicommunal 
federation.

    Question 14. What specific steps will you take if confirmed to 
expose and punish corruption and money laundering on the island, 
including through FATF, U.S. Treasury sanctions tools, and other 
punitive measures?

    Answer. Money laundering in the Republic of Cyprus is an issue of 
concern for the United States. Recognizing the importance of strong 
financial institutions and the risks of Russian money laundering, the 
Republic of Cyprus has been working with the United States to make 
improvements to its anti-money laundering regulations and regulatory 
oversight. Cyprus still needs to take more steps to combat the numerous 
challenges and risks posed by illicit money in the economy. We are 
encouraged by the progress local banks have made to boost compliance 
with regulations by culling suspicious accounts and hiring additional 
personnel to conduct due diligence; however, we believe more needs to 
be done. If confirmed, I will encourage the Republic of Cyprus to 
continue to strengthen its FATF compliance including FATF standards on 
beneficial ownership, and measures to limit the ease of shell company 
formation.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Hon. Judith G. Garber by Senator Marco Rubio

    Question 1. The increasingly close working relationship between 
Israel, Cyprus, and Greece has been described as the possible 
beginnings of an eastern Mediterranean alliance, one that would span 
security, energy, and diplomacy. Do you believe that a closer working 
relationship among Cyprus, Greece, and Israel is a positive 
development? If confirmed, is this a relationship that you would 
support?

    Answer. Cyprus, Greece, and Israel are democracies and valued 
friends. They have important roles in enhancing peace, stability, and 
prosperity in the Eastern Mediterranean. We are examining how we can 
support their efforts and advance U.S. interests in the region. As part 
of this effort, we are working systematically to strengthen security 
and energy cooperation with the Republic of Cyprus. If confirmed, I 
will take steps to further enhance the relationship between the United 
States and the Republic of Cyprus. The administration's priority is to 
ensure the stability of the Eastern Mediterranean and, towards this 
end, I will support continued high-level U.S. engagement with the 
Republic of Cyprus on the wide range of issues of common concern to 
both countries, including regional security.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Hon. Judith G. Garber by Senator Benjamin L. Cardin

    Question 1. Under the ruling Justice and Development Party (AKP), 
the Turkish Government has encouraged public policy decisions and 
demographic changes that expand the political and cultural influence of 
religiously and socially conservative nationalism within the Turkish 
Cypriot community in contrast to the historically secular liberal 
identity of most Turkish Cypriots.

   Do you consider these developments a hindrance to reconciliation 
        and reunification efforts on the island? How do you intend to 
        address Turkey's influence on the island?

    Answer. The issue of Turkish citizens who settled in Cyprus post-
1974 has been a very sensitive matter that has been the subject of a 
great deal of discussion between the Greek Cypriot and Turkish Cypriot 
leaders and their respective communities. It underscores the need for 
the communities to find a just, lasting, and comprehensive settlement 
of this and all other matters. Turkey has conveyed publicly its support 
for the UN-facilitated settlement process and actively participated in 
the International Conference on Cyprus in Crans-Montana in 2017. We 
urge Turkey to play a constructive role in support of the UN-
facilitated process. If confirmed, I will actively support efforts 
toward a settlement.

    Question 2. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career I have promoted human rights and 
democracy. As Ambassador to Latvia, I championed human rights and 
democracy with the Embassy team through programs to strengthen 
investigative journalism, support LGBT rights, and improve tolerance 
between ethnic Russian and Latvian communities. In my current role in 
the Bureau of Oceans and International Environmental and Scientific 
Affairs, our activities to ensure public participation on environmental 
issues associated with CAFTA-DR Agreement's environment chapter 
implementation has directly supported stronger governance and 
accountability. If confirmed, I will strongly support human rights and 
democracy in the Republic of Cyprus.

    Question 3. What are the most pressing human rights issues in 
Cyprus? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Cyprus? What do you 
hope to accomplish through these actions?

    Answer. If confirmed, I will urge the Republic of Cyprus to promote 
our shared democratic values, both in the Cyprus and across Europe. If 
confirmed, and consistent with American values, I will continue to 
speak out strongly in support of human rights in Cyprus to include 
addressing such matters as the need to fight trafficking in persons, 
corruption, and societal violence against members of ethnic and 
national groups.

    Question 4. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Cyprus in advancing 
human rights, civil society and democracy in general?

    Answer. Addressing human rights concerns in other countries is 
often a challenging proposition as it touches on countries' domestic 
equities. If confirmed, and consistent with our shared values, I will 
urge officials of the Republic of Cyprus to promote policies both at 
home and abroad that support respect for human rights.

    Question 5. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Cyprus? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will continue to meet with human rights, 
civil society, and other non-governmental organizations in the United 
States and Cyprus in continuation of the Embassy's practice of meeting 
civil society groups, from all communities on a regular basis and 
empowering their voices in policy debates. I will also meet with 
members of different religious groups and government officials to 
promote freedom of religion or belief for all Cypriots. I will enforce 
the Leahy Law and ensure that no individual or unit credibly implicated 
in a gross violation of human rights receives U.S. funded assistance 
and will assist the Government of Cyprus to hold perpetrators of gross 
human rights violations accountable. We have worked to strengthen 
cooperation with Cyprus on counterterrorism, maritime and border 
security, and will continue to look for opportunities for cooperation 
in other areas of mutual interest. By urging our partners to uphold 
their own commitments and the rule of law, we can strengthen Cypriot 
capabilities to counter threats to their security and sovereignty.

    Question 6. Will you and your embassy team actively engage with 
Cyprus to address cases of key political prisoners or persons otherwise 
unjustly targeted by Cyprus?

    Answer. According to the State Department's 2017 Country Report of 
Human Rights Practices, there were no reports of political prisoners or 
detainees in the Republic of Cyprus.
    In February 2018, the country held free and fair elections in which 
voters again elected Nicos Anastasiades as president. The law and 
constitution provide citizens the ability to choose their government in 
free and fair periodic elections held by secret ballot and based on 
universal and equal suffrage. In national elections, only Turkish 
Cypriots who resided permanently in the Government-controlled area were 
permitted to vote and run for office. In elections for the European 
Parliament, Cypriot citizens, resident EU citizens, and Turkish 
Cypriots who live in the area administered by Turkish Cypriots have the 
right to vote and run for office. If confirmed, I plan to continue the 
Embassy's practice of meeting with representatives across the political 
spectrum, including voices seeking to hold the Government to account 
for corruption or other challenges to human rights.

    Question 7. Will you engage with Cyprus on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with Cypriot officials on 
matters of human rights, civil rights, and governance as a matter of 
priority.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in Cyprus?

    Answer. No.

    Question 11. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. A diverse and inclusive team is the type of team that, if 
confirmed, I will aim to foster. If confirmed, I will lead by example 
in promoting greater diversity in the Foreign Service and will do 
everything I can to ensure the U.S. Mission in Cyprus continually 
strives to promote equal opportunity for our officers, including women 
and those from historically marginalized groups.

    Question 12. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, under my leadership, the Embassy will reflect 
our whole-of-mission commitment to promoting diversity and inclusion. I 
will emphasize the importance of diversity and inclusion to all Embassy 
supervisors, and will make sure that supervisors have the opportunity 
to receive proper formal training and regular guidance to ensure they 
are helping to foster a work environment that is diverse and inclusive. 
It is my firmly held belief that diverse and inclusive teams lead to 
stronger and better performing organizations.

    Question 13. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Cyprus 
specifically?

   What is your assessment of corruption trends in Cyprus and efforts 
        to address and reduce it by that government?
   If confirmed, what steps will you take to strengthen good 
        governance and anticorruption programming in Cyprus?

    Answer. Corruption corrodes democratic institutions and economic 
development. Corruption dissuades investors and weakens public 
confidence in institutions.
    Recognizing the importance of strong financial institutions and the 
risks of Russian money laundering, the Republic of Cyprus has been 
working with the United States to make improvements to its anti-money 
laundering regulations and regulatory oversight. Cyprus still needs to 
take more steps to combat the numerous challenges and risks posed by 
illicit money in the economy. We are encouraged by the progress local 
banks have made to boost regulations by culling suspicious accounts and 
hiring additional personnel to conduct due diligence. If confirmed, I 
will encourage the Republic of Cyprus to continue to strengthen its 
banking and anti-money laundering regulations and implement measures to 
limit the ease of shell company formation.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Judith G. Garber by Senator John Barrasso

    Question 1. What are the major barriers to achieving a permanent 
solution to the political and physical divisions on the island of 
Cyprus?

    Answer. The Republic of Cyprus is a valued friend and important 
partner. The United States has supported Cypriot-led, UN-facilitated 
negotiations to reunify the island as a bizonal, bicommunal federation 
as the best means to achieve a just and lasting settlement that 
benefits all Cypriots. Experts have pointed out that, over time and 
until the island is reunified, social, political, and economic 
differences could deepen. If confirmed, I will continue to encourage 
the leaders and all stakeholders to achieve an agreement, sooner rather 
than later, that benefits all Cypriots.

    Question 2. What additional efforts can the United States take to 
encourage a negotiated settlement and reunification of the two 
communities in Cyprus?

    Answer. If confirmed, I will actively support the reunification of 
Cyprus as a bizonal, bicommunal federation, which has been the long-
standing policy of the United States, consistent with United Nations 
Security Council Resolutions. I will also continue to encourage the 
parties to engage constructively to reach a just and lasting 
settlement. The United States supports the Cypriot-led, UN-facilitated 
settlement effort and will continue to do so. As a friend to all 
Cypriots, the United States supports and engages with both sides in 
their efforts to reach a settlement. The Cypriots, themselves, must 
find a solution in the talks that is satisfactory to both sides.

    Question 3. What opportunities exist for close cooperation between 
Cyprus, Israel, and Greece, as part of an Eastern Mediterranean 
Alliance?

    Answer. Cyprus, Greece, and Israel are democracies and valued 
friends. We believe that they have important roles in enhancing peace, 
stability, and prosperity in the Eastern Mediterranean. We are 
examining how we can support their efforts and advance U.S. interests 
in the region. If confirmed, I will work to continue strengthening our 
cooperation with the Republic of Cyprus on counterterrorism, law 
enforcement, maritime and border security and regional stability, as 
well as continuing to look for opportunities to cooperate in other 
areas of mutual interest.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Hon. Judith Gail Garber by Senator Jeanne Shaheen

    Question 1. The close and increasingly closer working relationship 
between Israel, Cyprus and Greece--the Western World outpost countries 
in the Eastern Mediterranean--and America have been described as the 
Eastern Mediterranean Alliance (EMA) in recent articles. How do you 
believe this Alliance contributes to American interests?

    Answer. Cyprus, Greece, and Israel are democracies and valued 
friends. They have important roles in enhancing peace, stability, and 
prosperity in the Eastern Mediterranean. We are examining how we can 
support their efforts and bolster the U.S. presence in the region to 
counter Iranian efforts to develop a window onto the Mediterranean and 
the growing Russian naval presence. As part of this effort, we are 
working systematically to strengthen security and energy cooperation 
with the Republic of Cyprus. If confirmed, I will take steps to further 
enhance the relationship between the United States and the Republic of 
Cyprus. The administration's priority is to ensure the stability of the 
Eastern Mediterranean and, towards this end, I will support continued 
high-level U.S. engagement with the Republic of Cyprus on the wide 
range of issues of common concern to both countries, including regional 
security.

    Question 2. Ambassador, Cyprus came close to a political settlement 
recently. What do you feel are the challenges to reaching a settlement 
in Cyprus? What role has Turkey played in negotiations between the two 
communities?

    Answer. The United States has supported Cypriot-led, UN-facilitated 
negotiations to reunify the island as a bizonal, bicommunal federation 
as the best means to achieve a just and lasting settlement that 
benefits all Cypriots. We continue to believe that this process is the 
most promising way to arrive at a lasting solution. A settlement would 
unlock Cyprus' significant unrealized economic potential, facilitate 
relations throughout the Eastern Mediterranean and could lead to 
greater cooperation between the EU and NATO. A settlement could also 
improve regional energy cooperation. Turkey has conveyed publicly its 
support for the UN-facilitated settlement process and actively 
participated in the International Conference on Cyprus in Crans-Montana 
in 2017. We continue to encourage Turkey to play a constructive role in 
support of the UN-facilitated process.
    If confirmed, I will continue to encourage the leaders and all 
stakeholders to achieve an agreement that benefits all Cypriots.

    Question 3. Ambassador, Cyprus has traditionally attracted Russian 
investment and use of the banks in that country. While Cyprus has 
certainly done a lot to counter money laundering, are you concerned 
that Cypriot banks are still being used as a destination for dirty 
money?

    Answer. Money laundering in the Republic of Cyprus is an issue of 
concern for the United States. Recognizing the importance of strong 
financial institutions and the risks of money laundering, both from 
Russia and elsewhere, the Republic of Cyprus has been working with the 
United States to make improvements to its anti-money laundering 
regulations and regulatory oversight. Cyprus still needs to take more 
steps to combat the numerous challenges and risks posed by illicit 
money in the economy. We are encouraged by the progress local banks 
have made to boost compliance with regulations by culling suspicious 
accounts and hiring additional personnel to conduct due diligence; 
however, we believe more needs to be done. If confirmed, I will 
encourage the Republic of Cyprus to continue to strengthen its anti-
money-laundering efforts, and measures to limit the ease of shell 
company formation.

    Question 4. What is your view on lifting the restrictions on 
selling arms to Cyprus?

    Answer. Long-standing U.S. policy with regard to arms exports to 
Cyprus has focused on avoiding further militarization of the island. 
Nevertheless, the United States has licensed the sale of defense 
equipment to Cyprus on a case-by-case basis. We have done so within 
existing restrictions to strengthen cooperation on explosive ordnance 
disposal, counterterrorism, maritime and border security, and other 
areas of mutual interest. If confirmed, I will continue to look at ways 
to systematically strengthen our security relationship with Cyprus.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Hon. Judith G. Garber by Senator Christopher A. Coons

    Question 1. The State Department referred to Cyprus in September 
2017 as a strategic partner of the United States. Cyprus has provided 
assistance to the United States in many instances, such as medical 
treatment for U.S. soldiers in the aftermath of the 1983 Marine 
barracks bombing in Beirut and the evacuation of more than 2,500 
Americans during an outbreak of fighting in Lebanon in 2006. What is 
the strategic importance of Cyprus to the United States and what are 
potential avenues of increased cooperation in the bilateral 
relationship?

    Answer. The Republic of Cyprus is a democracy, an EU member state, 
and a key partner in a strategically important but unstable region. We 
are working systematically to strengthen security cooperation with the 
Republic of Cyprus, while continuing to support Cypriot-led, U.N.-
facilitated negotiations to reunite the island. The administration's 
priority is to ensure the stability of the Eastern Mediterranean and, 
towards this end, I will support continued high-level U.S. engagement 
with the Republic of Cyprus on the wide range of issues of common 
concern to both countries, including regional and maritime security, 
law enforcement cooperation, and educational and cultural exchanges.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Dr. Jeffrey Ross Gunter by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In 2012, I co-founded the Early Investigator High School 
(EiHS) program for stem cell research at the University of Southern 
California where we supported high school students from the inner city 
to study and perform stem cell research regardless of social economic 
consideration. This provided these students an excellent education here 
in America regardless of their socio-economic situation.
    In addition, I have supported various charities supporting our 
United States military who have bravely defended human rights and 
democracy around the world.
    Regarding the impact of my actions, inner city students have had 
opportunities to participate in America in ways they would not have had 
otherwise unless given this access to education. Our military has used 
these donations to take care of those who fight for democracy and human 
rights around the world.

    Question 2. What issues are the most pressing challenges to human 
rights in Iceland? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in Iceland 
and, working in partnership with Iceland, to promote human rights 
around the globe? What do you hope to accomplish through these actions?

    Answer. Iceland is a constitutional parliamentary republic with no 
egregious human rights abuses. However, Iceland does not currently 
fully meet the minimum standards for the elimination of human 
trafficking, although it is making significant efforts to do so. If 
confirmed, I will continue our U.S. Embassy's robust engagement with 
Icelandic officials and non-government organizations to intensify 
Iceland's efforts to investigate, prosecute, and convict suspected 
traffickers. I will also continue our close partnership with Iceland to 
promote human rights and democracy around the globe.

    Question 3. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations, and 
other members of civil society in Iceland?

    Answer. I commit to meet with civil society members, human rights 
and other non-governmental organizations, and other members of civil 
society in Iceland, if confirmed.

    Question 4. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? Will you advocate 
for access and inclusivity for women, minorities and youth within 
political parties?

    Answer. I commit to meet with democratically oriented political 
opposition figures and parties, if confirmed. I also commit to advocate 
for access and inclusivity for women, minorities and youth within 
political parties.

    Question 5. Will you and your embassy team actively engage with 
Iceland on freedom of the press and any undermining of freedom of 
expression in the country? Will you commit to meeting regularly with 
independent, local press in Iceland?

    Answer. I commit to engage actively with Iceland on press freedom 
issues and any undermining of freedom of expression in the country. I 
also commit to meeting regularly with independent, local press in 
Iceland.

    Question 6. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. I commit to engage actively with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors in Iceland.

    Question 7. Will you and your embassy teams actively engage with 
Iceland on the right of labor groups to organize, including for 
independent trade unions?

    Answer. I commit to engage actively with Iceland on the right of 
labor groups to organize, including for independent trade unions.

    Question 8. Will you commit to using your position, if confirmed, 
to support the human rights and dignity of all people in Iceland, no 
matter their sexual orientation or gender identity?

    Answer. If confirmed, I commit to support the human rights and 
dignity of all people in Iceland, no matter their sexual orientation or 
gender identity.

    Question 9. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Iceland?

    Answer. If confirmed, I will continue our U.S. Embassy's robust 
engagement with Icelandic officials and civil society groups in support 
of religious freedom and peaceful religious expression in Iceland.

    Question 10. How will you work with Icelandic counterparts to boost 
resilience to Russian Government meddling within its democratic 
institutions and civil society, and to counter Kremlin threats in the 
Nordic and Arctic region?

    Answer. If confirmed, I will continue our U.S. Embassy's engagement 
with Icelandic counterparts to boost resilience to Russian Government 
malign influence and to counter Kremlin threats in the Nordic and 
Arctic region. Iceland is a like-minded democracy that shares our 
values. If confirmed, I will work closely with Iceland officials to 
maintain transatlantic unity and push back against Russian malign 
influence.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Dr. Jeffrey Ross Gunter by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In 2012, I co-founded the Early Investigator High School 
(EiHS) program for stem cell research at the University of Southern 
California where we supported high school students from the inner city 
to study and perform stem cell research regardless of social economic 
consideration. This provided these students a world class education 
here in America regardless of their socio-economic situation.
    In addition, I have supported various charities supporting our 
United States military who have bravely defended human rights and 
democracy around the world.
    Regarding the impact of my actions, inner city students have had 
opportunities to participate in America in ways they would not have had 
otherwise unless given this access to education. Our military has used 
these donations to take care of those who fight for democracy and human 
rights around the world.

    Question 2. Will you engage with Iceland on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Promoting human rights, civil rights, and good governance 
is an important part of U.S. foreign policy. If confirmed, I look 
forward to discussing these issues with Icelandic officials as part of 
our broader bilateral relationship.

    Question 3. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 4. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you or do any members of your immediate family have 
any financial interests in Iceland?

    Answer. I do not have any financial interests in Iceland. No 
immediate family members have financial interests in Iceland.

    Question 6. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, upon arrival at post, I will review with the 
entire mission the importance of diversity within our embassy 
community.
    I will utilize all resources available to ensure that we promote, 
mentor, and support our staff from all diverse backgrounds.

    Question 7. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Upon arrival at post, I will review current policies in 
place and ensure that all supervisors at the embassy are fostering an 
environment that is diverse and inclusive. This will be reviewed 
continuously per embassy protocol.

    Question 8. How do you believe political corruption impacts 
democratic governance and the rule of law generally?

    Answer. Political corruption undermines peoples' faith in their 
government leaders and institutions. It can also rob ordinary citizens 
of their right to a more prosperous future. Democratic ideals are at 
the core of U.S. foreign policy, and if confirmed, I look forward to 
working together with the Icelandic Government to promote transparency 
and rule of law around the world.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Dr. Jeffrey Ross Gunter by Senator Jeanne Shaheen

    Question 1. Russian aggression towards our NATO allies has included 
violations of Icelandic waters and airspace by Russian submarines and 
planes. How concerned is Iceland about a resurgent Russia, and what are 
some areas where the United States might work with Iceland to address 
and counter any threat?

    Answer. Icelandic leaders have said publicly that they share our 
concerns about Russian aggression and malign influence in Europe. They 
have also condemned Russia's purported annexation of Crimea and 
continued aggression in eastern Ukraine.
    While not an EU member state, Iceland maintains sanctions on Russia 
in response to its actions in Ukraine, even though Russia imposed 
retaliatory counter-sanctions on Icelandic fish exports.
    If confirmed, I will work with Icelandic officials to maintain our 
like-minded approach to holding Russia accountable for its malign 
behavior.

    Question 2. In your assessment, how prepared is Iceland for an 
attack on its cyber infrastructure? What steps is Iceland taking to 
prepare, and how can the U.S. assist in building Iceland's cyber 
defenses?

    Answer. The Icelandic Government recognizes cyber defense as a 
critical component to its national security. The United States and 
Iceland cooperate closely on cyber issues, including through annual 
meetings with U.S.-Nordic-Baltic counterparts.
    If confirmed, I will work with Icelandic officials to maintain our 
dialogue on cyber security and to identify and address threats, gaps, 
and vulnerabilities.

    Question 3. Iceland has identified the Arctic and climate change as 
important priorities, and is a leader in renewable energy. If 
nominated, will you work with Iceland to advance its climate 
priorities?

    Answer. The United States Government maintains a close dialogue 
with Iceland on climate and environmental issues. Iceland, like the 
United States, is an Arctic nation and will take over the Chairmanship 
of the Arctic Council in 2019.
    If confirmed, I will continue to maintain our close cooperation 
with Iceland on these important issues.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Earle D. Litzenberger by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career--in Afghanistan, Kazakhstan, 
Kyrgyzstan, Serbia, at the U.S. Missions to the EU and NATO, and 
elsewhere--I have worked to promote the core U.S. values of democracy 
and human rights. As the Political Counselor at the U.S. Embassy in 
Kazakhstan, I met regularly with civil society and opposition activists 
to support them at a time when opposition leaders were being physically 
assaulted for exercising their fundamental freedoms. I worked with my 
colleagues at the Mission of the European Union in Kazakhstan to 
develop a joint U.S.-EU Democracy Award to recognize human rights 
activists in the country.
    As the Deputy Chief of Mission in Kyrgyzstan, I met with all 
elements of civil society and worked to ensure that U.S. assistance 
programs supported civil society, an independent judiciary, and free 
and fair elections. On the eve of Kyrgyzstan's presidential elections, 
when I learned the Government planned to deny domestic and OSCE 
election observers the opportunity to observe the vote, I immediately 
called the foreign minister to express deep U.S. concern. The 
Government ultimately allowed election monitors to observe the 
elections.
    As Deputy Chief of Mission in Serbia, I consistently emphasized 
respect for human rights, with a particular focus on rule-of-law 
reforms. I worked directly with the ministry of justice to ensure U.S. 
assistance programs could continue to operate, and I supported 
cooperation that resulted in Serbia rendering all remaining Serbian 
indictees of the International Criminal Tribunal for the former 
Yugoslavia to The Hague for prosecution.
    In Afghanistan, I led a NATO team that participated in the recount 
of votes in the 2014 presidential election that led to recognition of 
results that allowed the formation of the current Government of 
National Unity.
    At the U.S. Mission to the European Union, I worked closely with 
the EU to encourage it to join the United States in imposing sanctions 
on Belarus for human rights violations and abuses. At NATO, I worked 
with our Allies to hold Russia accountable for its violations of 
international law and human rights, and I led the U.S. Mission's 
engagement with the NATO Parliamentary Assembly to highlight the vital 
role of legislative oversight in democracies.
    In all posts, I have supported vigorous U.S. exchange programs to 
shape the views and understanding of U.S. democracy for key opinion 
makers, civil society activists, and independent journalists in the 
countries in which I have served.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Azerbaijan? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights, and press freedom. Please be as specific as 
possible.

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitution and international obligations 
and commitments, to ensure human rights and fundamental freedoms, 
including of assembly, association, religion, and expression; to foster 
an environment conducive to a vibrant and peaceful civil society; to 
respect pluralism; and to foster judicial independence, due process, 
and access to justice. I look forward to working with all partners to 
advance these goals. Azerbaijan's progress in these areas would help to 
deepen our bilateral relationship and enhance the country's long-term 
security. As U.S. officials have previously stated, Azerbaijan's 
release of all those incarcerated in connection with the exercise of 
their fundamental freedoms would be a good first step.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Azerbaijan? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. There are several potential obstacles to addressing our 
human rights concerns. These include challenges to pluralism in civil 
society, the media, political parties, religious groups, and the 
private sector. If confirmed, I will urge the Azerbaijani Government to 
create an environment in which civil society, the media, political 
parties, religious groups, and the private sector can operate freely, 
and I will work closely with all partners to ensure they can conduct 
their work as effectively as possible. Rule of law is critical to 
democratic and economic development, as well as to human and national 
security. The Department has raised our concerns about respect for 
human rights, fundamental freedoms, and the rule of law in Azerbaijan 
publicly and privately with the Azerbaijani Government. If confirmed, I 
will advocate these core U.S. values and develop a dialogue with 
Azerbaijan on these important issues.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The Department of State and USAID democracy assistance 
seeks to strengthen civil society, encourage and facilitate citizens to 
participate in local decision-making and constructive community 
engagement with the authorities, and support independent media. It 
seeks to ensure citizens have access to reliable media and outlets for 
independent expression and participation. If confirmed, I will continue 
to support these assistance efforts.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Azerbaijan? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, and, if confirmed, such meetings will be among my 
first priorities upon arriving in Azerbaijan. I will continue the 
Embassy's current commitment to have Embassy officers, at all levels, 
meet with those outside of the Government, such as civil society 
representatives and independent journalists, to demonstrate our support 
for pluralism and fundamental freedoms. If confirmed, I also will 
address our concerns publicly and privately about the shrinking space 
for civil society and restrictions on fundamental freedoms. 
Azerbaijan's progress in this area would help to deepen our bilateral 
relationship and enhance the country's long-term security.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities, and youth within 
political parties?

    Answer. Yes, and, if confirmed, such meetings will be among my 
first priorities upon arriving in Azerbaijan. I will continue the 
Embassy's current commitment to have Embassy officers, at all levels, 
meet with those outside of the Government, including political 
opposition figures and parties, to demonstrate our support for 
pluralism and fundamental freedoms. I will advocate for access and 
inclusivity for women, minorities, and youth in all spheres, including 
in political life.
    The United States has pressed publicly and privately for full 
respect for political pluralism and a level playing field for 
democratic competition. If confirmed, I will work with the Azerbaijani 
Government and with Azerbaijani stakeholders in these and other related 
areas. I also will support continued public messaging to raise U.S. 
concerns about democratic electoral processes, as well as on human 
rights issues.

    Question 7. Will you and your embassy team actively engage with 
Azerbaijan on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory, or other measures? Will you commit to meeting regularly 
with independent, local press in Azerbaijan?

    Answer. Independent media are key to Azerbaijan's democratic and 
economic development. The Azerbaijani people deserve access to 
independent journalism in all media forms. If confirmed, it will be 
among my first priorities to meet with independent, local media 
representatives. I will continue the Embassy's current commitment to 
have Embassy officers, at all levels, meet with those outside of the 
Government, including independent journalists, to demonstrate our 
support for pluralism and fundamental freedoms. If confirmed, I will 
continue to engage the Azerbaijani Government publicly and privately 
about the importance of media freedom.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. If confirmed, I will engage with civil society and 
Azerbaijani Government officials to counter disinformation and malign 
propaganda disseminated by foreign state or non-state actors in 
Azerbaijan. The Embassy currently supports training for journalists to 
counter disinformation and promote professional journalism. If 
confirmed, I will support these and other efforts to counter 
disinformation in Azerbaijan about U.S. policy and other issues.

    Question 9. Will you and your embassy teams actively engage with 
Azerbaijan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. In line with Department of State priorities, if confirmed, 
I will promote worker rights in Azerbaijan through a focus on 
internationally-recognized labor rights related to the freedom of 
association, effective recognition of the right to collective 
bargaining, and the elimination of forced labor, child labor, and 
employment discrimination. In so doing, I will engage with local civil 
society organizations, trade unions, companies, and other 
organizations. If confirmed, I will continue the Embassy's current 
commitment to have Embassy officers, at all levels, meet with such 
groups.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the Azerbaijan, 
no matter their sexual orientation or gender identity? What challenges 
do the lesbian, gay, bisexual, transgender, and intersex (LGBTI) people 
face in Azerbaijan? What specifically will you commit to do to help 
LGBTI people in the Azerbaijan?

    Answer. Governments have a responsibility to respect the human 
rights and fundamental freedoms of all individuals, including LGBTI 
persons. As the Universal Declaration of Human Rights states, all human 
beings are born free and equal in dignity and in rights. Advancing 
universal human rights is in our national interest, and as Secretary 
Pompeo has said, LGBTI persons deserve the same freedoms, protections, 
and respect as everyone else.
    With respect to Azerbaijan, if confirmed, I would consult closely 
with LGBTI human rights defenders on how best to support them in their 
advocacy, including through capacity building exchange programs like 
the International Visitor Leadership Program. I would not shy away from 
speaking out publicly and privately in support of the rights of all, 
including LGBTI persons, as the State Department spokesperson and other 
U.S. Government officials did following reports of the detention of 
LGBTI persons in Azerbaijan. If confirmed, I will continue to urge the 
Azerbaijani Government to uphold and respect its international human 
rights obligations and commitments.

    Question 11. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Azerbaijan? Will 
you commit to meet with representatives of a diverse swath of religious 
groups and communities and to advocate for their ability to register 
and worship peacefully in the country?

    Answer. Azerbaijan is a Shi'a Muslim majority country with a 
reputation of religious tolerance. However, as documented in the 
Department of State's annual International Religious Freedom Report on 
Azerbaijan, the Government restricts legal registration of some 
minority religious groups, controls importation and distribution of 
religious materials, and disrupts the peaceful gatherings of 
unregistered religious communities. If confirmed, I will continue our 
efforts to urge the Azerbaijani Government to facilitate the 
registration of all religious groups and permit the importation, 
distribution, and sale of religious materials, and to protect the 
rights of members of all groups. If confirmed, I also will hold regular 
meetings with a diverse swathe of civil society members, religious 
organizations, and human rights activists.

    Question 12. If confirmed, how will you seek to boost resilience to 
Russian Government meddling within Azerbaijan's institutions and civil 
society? What types of U.S. engagement do you see as most critical in 
this regard? How will you address corrupt political and economic 
influence or other illicit dealings with Azerbaijani actors that can 
increase space in the country for the Kremlin to push its agenda?

    Answer. In addition to diplomatic engagement, the United States 
Government supports programs that enhance rule of law, independent 
media and civil society, and economic resilience as three key areas 
where U.S. assistance is most effective against the levers of Russian 
influence. These programs--including anti-corruption activities, 
efforts to support independent media, assistance in finding non-Russian 
markets for agricultural produce, and advocating for effective 
government supervision of financial institutions--help make Azerbaijan 
less vulnerable to foreign malign influence, including from Russia, and 
more transparent.

    Question 13. More broadly, what do you see as most needed to 
effectively counter violent extremist influences in Azerbaijan 
emanating from the Gulf, Iran, or other states? If confirmed, how will 
you ensure that the Azerbaijani Government's response to violent 
extremist threats does not involve violating individual human rights 
and religious freedom?

    Answer. U.S. foreign assistance priorities in Azerbaijan include 
efforts to combat terrorism and drivers of violent extremism. U.S. 
assistance aims to prevent the radicalization of populations by 
addressing the root causes of economic, political, and social malaise, 
and to mitigate the appeal of violent extremist ideologies, with a 
particular focus on youth capacity development and employment. If 
confirmed, I will continue to support these efforts and make clear to 
the Azerbaijani Government our expectation that the Government's 
response to violent extremist threats should not involve violations or 
abuses of human rights and fundamental freedoms.

    Question 14. Reports continue to surface of widespread corruption 
in Azerbaijan, including involving the Aliyev family and other senior 
officials, and the Organized Crime and Corruption Reporting Project 
investigated an ``Azerbaijani Laundromat'' scheme to launder illicit 
funds, buy influence, and whitewash the country's poor human rights 
record among foreign audiences. What specific steps will you take if 
confirmed to expose and punish corruption and abuses in the country, 
including through the use of Global Magnitsky Act sanctions and other 
punitive tools?

    Answer. As the Department of State's annual Human Rights Report 
makes clear, the United States remains concerned about systemic 
corruption in Azerbaijan, although the Government has made some 
progress in combatting low-level corruption in provision of government 
services. Corruption is a matter we have raised consistently with the 
Azerbaijani Government and, if confirmed, I will continue to raise U.S. 
concerns publicly and privately. If confirmed, I will push for progress 
in all areas crucial for strengthening the rule of law, including 
judicial independence, access to justice, citizens' awareness of 
rights, engagement on legal issues, and equal protection under the law; 
equal status in practice for prosecutors and defense attorneys; and 
systemic anti-corruption measures. The State Department is committed to 
combatting corruption with all of the tools at our disposal.

    Question 15. If confirmed, how will you support an honest 
accounting of corruption and human rights abuses by Azerbaijani 
Government officials and incorporate this information into policy 
decisions regarding security assistance and other engagement with 
Azerbaijan?

    Answer. Security cooperation and democratic reform are key pillars 
of our bilateral agenda with Azerbaijan. Azerbaijan has been an 
important partner in U.S. and NATO missions in Kosovo, Iraq, and 
Afghanistan, as well as in combating terrorism and other transnational 
threats. Security cooperation with Azerbaijan is an important part of 
our bilateral relationship and advances U.S. strategic interests and 
our national security. This does not conflict with the U.S. commitment 
to work with Azerbaijan on improving its human rights record and, in 
fact, it widens the opportunities we have to raise human rights issues 
with the Azerbaijani Government. If confirmed, I will ensure full 
adherence to all applicable laws, including the Leahy Law, to ensure 
that U.S. security assistance and security cooperation in Azerbaijan 
reinforces human rights.

    Question 16. What measures is the United States taking to hold 
Azerbaijan accountable for violence and atrocities its forces have 
committed against Armenian troops and humanitarian or civilian 
infrastructure during violent flare-ups across the line of contact?

    Answer. If confirmed, I will ensure the Department of State 
continues to support the efforts of the OSCE Minsk Group to help the 
sides find a lasting solution to the Nagorno-Karabakh conflict, and to 
ensure the implementation of concrete measures to reduce tensions and 
increase effective monitoring along the Line of Contact and the 
Armenia-Azerbaijan international border. The United States strongly 
condemns the use of force and regrets the loss of life that has 
occurred along the Line of Contact. Such incidents are an unacceptable 
violation of the 1994 ceasefire agreement. We have frequently, publicly 
and privately, called upon both sides to refrain from the use of force 
or the threat of force. Such incidents only harm the peace process. The 
latest statement issued by the OSCE Minsk Group Co-Chairs expressed 
deep regret over the continuing and unnecessary loss of life resulting 
from this unresolved conflict. If confirmed as Ambassador, I will 
support our U.S. Co-Chair, Andrew Schofer, in his efforts to help 
achieve a peaceful resolution to the Nagorno-Karabakh conflict.

    Question 17. National Security Advisor John Bolton recently 
signaled openness to selling U.S. arms to both Armenia and Azerbaijan--
a policy that could escalate conflict in the region and stoke 
Azerbaijani aggression along the Nagorno-Karabakh Line of Contact. 
Please explain the justification for this policy development and what 
you will do, if confirmed, to ensure that arms sales or transfers to 
Azerbaijan are precluded from fueling conflict or human rights abuses.

    Answer. Ambassador Bolton made clear in his comments that the 
United States could only consider weapons sales if they were consistent 
with our statutory framework. As a matter of policy, the United States 
does not approve the transfer of controlled defense articles or 
services that could undermine or hamper efforts to find a peaceful 
settlement of the Nagorno-Karabakh conflict. The United States remains 
actively engaged as one of the OSCE Minsk Group Co-Chairs to help the 
sides reduce tensions and move toward a negotiated settlement. If 
confirmed, I will carefully implement this longstanding U.S. policy and 
ensure full adherence to all applicable laws.

    Question 18. The ethnic hatred and anti-Armenian sentiment that is 
perpetrated on Azerbaijan's state-owned and pro-government media 
continues to poison prospects for a peaceful settlement of the 
conflict, and contributes to increasing violence along the Line of 
Contact. President Aliyev himself has said that Armenians around the 
world--presumably including Armenian-Americans--are the country's 
``main enemies.'' If confirmed, what specific steps will you take to 
combat ethnic hatred in the media and reduce prospects of further 
Azerbaijani aggression against Armenians in Nagorno-Karabakh?

    Answer. As a Co-Chair of the OSCE Minsk Group, the United States 
condemns any action or rhetoric that fuels tensions in the region, as 
well as steps by any side that serve to diminish trust or threaten to 
damage the peace process. We consistently have encouraged the sides to 
refrain from unhelpful or provocative rhetoric, which serves only to 
harden public opinions against the hard compromises that ultimately 
will be needed to ensure a lasting and peaceful settlement of the 
Nagorno-Karabakh conflict. If confirmed as Ambassador, I will support 
our U.S. Minsk Group Co-Chair, Andrew Schofer, in his efforts to this 
end. If confirmed, I will urge relevant contacts to take constructive 
steps to advance a peaceful settlement that respects human dignity.

    Question 19. The Azerbaijani Government has sought to punish U.S. 
persons who travel to Nagorno-Karabakh by precluding their entry into 
Azerbaijan, despite the importance of surveying humanitarian needs and 
prospects for peace in Nagorno-Karabakh and the due diligence needed to 
monitor U.S.-supported demining and humanitarian programs. Azerbaijani 
officials have also reportedly threatened to target civilian aircraft 
that fly into Nagorno-Karabakh. What has the administration done to 
raise concerns with the Azerbaijani Government about these retaliatory 
actions against freedom of movement, and how will you address this 
issue if confirmed?

    Answer. If confirmed, I will do everything in my power to protect 
the safety and security of U.S. citizens, including by firmly 
condemning any threats to the safety of U.S. citizen travelers. The 
State Department advises U.S. citizens that the U.S. Government is 
unable to provide emergency services to U.S. citizens in Nagorno-
Karabakh and advises citizens not to travel to the region due to armed 
conflict. If confirmed, I will be prepared to engage with the 
Azerbaijani Government to ensure the safety and security of U.S. 
citizens. Violence or the threat of violence aimed at civilians of any 
nationality is unacceptable. If the need arises, I will deliver this 
message clearly to our Azerbaijani interlocutors.

    Question 20. What is your view on the Royce-Engel proposals on non-
deployment of snipers, heavy arms, or new weapons along the Nagorno-
Karabakh Line of Contact, the deploying of OSCE observers, and the 
deployment of advanced gunfire locator systems along the line of 
contact? Do you see these proposals as a viable path to peace, and will 
you promote their acceptance by the Azerbaijan Government if confirmed?

    Answer. As a Co-Chair of the Minsk Group, the United States has 
played and continues to play an active role in mediating a 
comprehensive, peaceful settlement of this longstanding conflict, the 
resolution of which would usher in a new era of peace and prosperity 
for the people of the South Caucasus.
    The United States supports proposals to withdraw snipers, launch an 
OSCE investigation mechanism, and deploy sensors along the Line of 
Contact and the Armenia-Azerbaijan international border. The United 
States has been a strong advocate in the Minsk Group process for these 
and other confidence-building measures, which we believe would further 
reduce violence in areas affected by the conflict. Since President 
Aliyev and Prime Minister Pashinyan met on the margins of the 
Commonwealth of Independent States summit in Dushanbe, Tajikistan, 
September 27-28 and reached an understanding about the need to reduce 
tensions and uphold the ceasefire, the level of violence has fallen 
significantly. The Co-Chairs welcomed these developments, commended the 
sides for implementing constructive measures in good faith, and 
expressed their support for the leaders' continued high-level dialogue.
    If confirmed, I will support initiatives by the sides, the Co-
Chairs, and others, which have the potential to further strengthen the 
ceasefire, reduce violence, and sustain a climate of trust for 
intensive negotiations on a peaceful settlement the conflict.

    Question 21. Please provide more specific examples of what you will 
do, if confirmed, to push back against egregious violations of human 
rights and religious freedom, including against religious minorities, 
by the Azerbaijani Government. What cases will you raise, and will your 
engagement include condemnation of the Azerbaijan Government's steps to 
desecrate or destroy remnants of Armenian and Christian religious 
heritage in the country?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitution and international obligations 
and commitments, to ensure human rights and fundamental freedoms, 
including of peaceful assembly, association, religion or belief, and 
expression; to foster an environment conducive to a vibrant and 
peaceful civil society; to respect pluralism; and to foster judicial 
independence, fair trial guarantees, and access to justice. I look 
forward to working with all partners to advance these goals. 
Azerbaijan's progress in these areas would help to deepen our bilateral 
relationship and enhance the country's long-term security.
    Specifically, if confirmed, I will continue to call for the release 
of all those incarcerated for exercising their fundamental freedoms. I 
will sustain efforts to urge the Azerbaijani Government to facilitate 
registration of all religious groups; permit the importation, 
distribution, and sale of religious materials; and protect the rights 
of members of all religious groups. Earlier in November, the 
Azerbaijani authorities registered the Baku community of Jehovah's 
Witnesses, which was a positive development. If confirmed, I also would 
condemn the destruction or desecration of any religious sites 
regardless of their affiliation.
    The United States remains concerned about the shrinking space for 
civil society and political pluralism in Azerbaijan. If confirmed, I 
will continue to raise these concerns with the Azerbaijani Government 
and other partners. Likewise, if confirmed, I will support independent 
journalism in all media forms and press for equal access for Radio Free 
Europe/Radio Liberty and other broadcasting organizations to be able to 
operate their various information platforms consistent with the rule of 
law and respect for freedom of expression.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Earle D. Litzenberger by Senator Marco Rubio

    Question 1. The Azerbaijani Government has scores of political 
prisoners of conscience behind bars, including journalists, dissidents, 
and religious activists. Some who have been released in recent years--
such as opposition leader Ilgar Mammadov in August 2018 and former RFE/
RL contributor Khadija Ismayilova in May 2016--remain subject to travel 
bans and have not had their records rehabilitated.

   If confirmed, what strategy do you plan to pursue to urge the 
        Government to uphold its international commitments to provide 
        fair and independent judicial procedures and to respect the 
        fundamental rights of all its people?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitution and international obligations 
and commitments, to ensure fundamental freedoms, including of peaceful 
assembly, association, religion, and expression; to foster an 
environment conducive to a vibrant and peaceful civil society; to 
respect pluralism; and to foster judicial independence and fair trial 
guarantees. If confirmed, I will continue to urge the Azerbaijani 
Government to release all those incarcerated for exercising their human 
rights and fundamental freedoms.

    Question 2. Over the past ten years, the Azerbaijani Government has 
targeted the operations and personnel of U.S.-funded Radio Free Europe/
Radio Liberty in Azerbaijan. Since December 2008, the Government has 
banned RFE/RL's ``Radio Azadliq'' from broadcasting on local radio 
frequencies. In December 2014, the Government raided and sealed RFE/
RL's bureau in Baku and arrested RFE/RL contributor and investigative 
journalist Khadija Ismayilova. In May 2015, authorities permanently 
closed the bureau and later that year sentenced Ms. Ismayilova to seven 
and a half years in jail. Since her provisional release in May 2016, 
Ms. Ismayilova remains subject to a travel ban and her conviction 
stands. In 2017, the Government blocked RFE/RL's news website along 
with those of other independent outlets.

   If confirmed, how do you plan to advocate on behalf of this 
        congressionally-funded media outlet and restore its ability to 
        provide independent media coverage to the people of Azerbaijan?

    Answer. Independent media are key to Azerbaijan's democratic and 
economic development, and U.S. officials have been clear with the 
Azerbaijani Government in pressing for a return of Radio Free Europe/
Radio Liberty and other broadcasting organizations to the local FM 
airwaves. The Azerbaijani people deserve access to independent 
journalism in all media forms. The Azerbaijani Government should 
respect the fundamental freedom of expression, including the freedom to 
seek, receive, and impart information.
    The United States also has called publicly and privately on 
Azerbaijan to reinstate online access to Radio Free Europe/Radio 
Liberty and other independent broadcasters and media organizations. If 
confirmed, I will continue to support this objective.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Earle D. Litzenberger by Senator Benjamin L. Cardin

    Question 1. Earlier this year, Azerbaijan held a presidential 
election that international observers said ``lacked genuine 
competition'' and ``took place within a restrictive political 
environment and under a legal framework that curtails fundamental 
rights and freedoms.'' President Ilham Aliyev--who has removed term 
limits and extended his term length from five to seven years--won with 
a reported 86 percent of the vote. Neither the U.S. Embassy in Baku nor 
the State Department released a formal public statement following the 
worrisome conduct of this election.

   How will you approach public messaging concerning Azerbaijan's weak 
        democratic institutions and respect for human rights?

    Answer. Free and fair electoral processes are a key component of 
democracy, political legitimacy, and long-term stability. As the most 
recent OSCE Office for Democratic Institutions and Human Rights (ODIHR) 
election reports on Azerbaijan indicate, much remains to be done for 
democratic electoral processes to be held in Azerbaijan. Following the 
April 11 presidential elections in Azerbaijan, the United States 
concurred publicly in the OSCE Permanent Council with the OSCE election 
observation mission's assessment, and we urged Azerbaijan to address 
these concerns expeditiously.
    The United States has pushed consistently for full implementation 
of electoral reforms in Azerbaijan recommended by international 
partners, such as the OSCE and Council of Europe. The United States has 
pressed publicly and privately for full respect for political pluralism 
and a level playing field for democratic competition. If confirmed, I 
will work with the Azerbaijani Government and people in these and other 
related areas. If confirmed, I also will support continued public 
messaging to raise U.S. concerns about democratic electoral processes, 
as well as on human rights issues.

    Question 2. In your opinion, what value do you see in public U.S. 
statements that affirm the importance of democratic values and identify 
places in which they are violated or inadequately observed?

    Answer. Promoting democracy and respect for human rights have long 
been central components of U.S. foreign policy. Supporting democracy 
not only promotes such fundamental American values as religious freedom 
and worker rights, but also helps create a more secure, stable, and 
prosperous global arena in which the United States can advance its 
national interests. U.S. public statements play an important role in 
affirming the importance of democratic values, shedding light on 
democratic deficiencies, advocating reforms, and supporting local 
organizations and individuals who promote free and fair democratic 
electoral processes, human rights and fundamental freedoms, and rule of 
law in their own countries.

    Question 3. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career--in Afghanistan, Kazakhstan, 
Kyrgyzstan, Serbia, at the U.S. Missions to the EU and NATO, and 
elsewhere--I have worked to promote the core U.S. values of democracy 
and human rights. As the Political Counselor at the U.S. Embassy in 
Kazakhstan, I met regularly with civil society and opposition activists 
to support them at a time when opposition leaders were being physically 
assaulted for exercising their fundamental freedoms. I worked with my 
colleagues at the Mission of the European Union in Kazakhstan to 
develop a joint U.S.-EU Democracy Award to recognize human rights 
activists in the country.
    As the Deputy Chief of Mission in Kyrgyzstan, I met with all 
elements of civil society and worked to ensure that U.S. assistance 
programs supported civil society, an independent judiciary, and free 
and fair elections. On the eve of Kyrgyzstan's presidential elections, 
when I learned the Government planned to deny domestic and OSCE 
election observers the opportunity to observe the vote, I immediately 
called the foreign minister to express deep U.S. concern. The 
Government ultimately allowed election monitors to observe the 
elections.
    As Deputy Chief of Mission in Serbia, I consistently emphasized 
respect for human rights, with a particular focus on rule-of-law 
reforms. I worked directly with the ministry of justice to ensure U.S. 
assistance programs could continue to operate, and I supported 
cooperation that resulted in Serbia rendering all remaining Serbian 
indictees of the International Criminal Tribunal for the former 
Yugoslavia to The Hague for prosecution.
    In Afghanistan, I led a NATO team that participated in the recount 
of votes in the 2014 presidential election that led to recognition of 
results that allowed the formation of the current Government of 
National Unity.
    At the U.S. Mission to the European Union, I worked closely with 
the EU to encourage it to join the United States in imposing sanctions 
on Belarus for human rights violations and abuses. At NATO, I worked 
with our Allies to hold Russia accountable for its violations of 
international law and human rights, and I led the U.S. Mission's 
engagement with the NATO Parliamentary Assembly to highlight the vital 
role of legislative oversight in democracies.
    In all posts, I have supported vigorous U.S. exchange programs to 
shape the views and understanding of U.S. democracy for key opinion 
makers, civil society activists, and independent journalists in the 
countries in which I have served.

    Question 4. What are the most pressing human rights issues in 
Azerbaijan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Azerbaijan? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitution and international obligations 
and commitments, to ensure human rights and fundamental freedoms, 
including of assembly, association, religion, and expression; to foster 
an environment conducive to a vibrant and peaceful civil society; to 
respect pluralism; and to foster judicial independence, due process, 
and access to justice. I look forward to working with all partners to 
advance these goals. Azerbaijan's progress in these areas would help to 
deepen our bilateral relationship and enhance the country's long-term 
security. As U.S. officials have previously stated, Azerbaijan's 
release of all those incarcerated in connection with the exercise of 
their fundamental freedoms would be a good first step.

    Question 5. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Azerbaijan in 
advancing human rights, civil society and democracy in general?

    Answer. There are several potential obstacles to addressing our 
human rights concerns. These include challenges to pluralism in civil 
society, the media, political parties, religious groups, and the 
private sector. If confirmed, I will urge the Azerbaijani Government to 
create an environment in which civil society, the media, political 
parties, religious groups, and the private sector can operate freely, 
and I will work closely with all partners to ensure they can conduct 
their work as effectively as possible. Rule of law is critical to 
democratic and economic development, as well as to human and national 
security. The Department has raised our concerns about respect for 
human rights, fundamental freedoms, and the rule of law in Azerbaijan 
publicly and privately with the Azerbaijani Government. If confirmed, I 
will advocate these core U.S. values and develop a dialogue with 
Azerbaijan on these important issues.

    Question 6. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Azerbaijan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, and, if confirmed, such meetings will be among my 
first priorities upon arriving in Azerbaijan. I will continue the 
Embassy's current commitment to have Embassy officers, at all levels, 
meet with those outside of the Government, such as civil society 
representatives and independent journalists, to demonstrate our support 
for pluralism and fundamental freedoms. If confirmed, I will ensure 
full adherence to all applicable laws, including the Leahy Law, to 
ensure that U.S. security assistance and security cooperation in 
Azerbaijan reinforces human rights.

    Question 7. Will you and your embassy team actively engage with 
Azerbaijan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Azerbaijan?

    Answer. If confirmed, I will urge the Azerbaijani authorities, 
consistent with Azerbaijan's constitution and international obligations 
and commitments, to ensure fundamental freedoms, including of assembly, 
association, religion, and expression; to foster an environment 
conducive to a vibrant and peaceful civil society; to respect 
pluralism; and to foster judicial independence and due process. If 
confirmed, I will continue the U.S. Government's efforts to urge the 
Azerbaijani Government to release all those incarcerated for exercising 
their human rights and fundamental freedoms.

    Question 8. Will you engage with Azerbaijan on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. Yes, and, if confirmed, it will be among my first 
priorities upon arriving in Azerbaijan. Promoting respect for human 
rights and good governance in Azerbaijan remains one of the three 
equally important and interconnected pillars of our bilateral 
relationship, along with cooperation on energy and economic issues, and 
on security.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Azerbaijan?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in Azerbaijan.

    Question 12. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As the face of America overseas, the State Department's 
workforce should be diverse in every sense of the word and reflect our 
nation's rich diversity. If confirmed, I will support that aim by 
recruiting a diverse team at U.S. Embassy Baku, mentoring all employees 
under my supervision to welcome and appreciate the advantages diversity 
brings to the workplace, and demanding that every team member be 
treated equally with dignity and respect.

    Question 13. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will recruit a diverse team at U.S. Embassy 
Baku, mentor all employees under my supervision, and demand that every 
team member be treated equally with dignity and respect. I will make 
clear to all supervisors at U.S. Embassy Baku that I expect them to 
adhere to these principles. Throughout my career, I have worked to 
foster inclusive and respectful work environments, and I will not 
tolerate improper behavior that undermines this aim.

    Question 14. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Azerbaijan 
specifically?

    Answer. Political corruption is a global challenge, and it has a 
negative and corrosive impact on democratic governance and the rule of 
law. Increased transparency in governance; support for an independent 
judiciary, independent media, and vibrant civil society; strengthened 
separation of powers among branches of government; and whistleblower 
protections are important to help combat corruption. Corruption in 
Azerbaijan impedes the Government's stated goal of attracting foreign 
investment, and it negatively affects adherence to democratic 
principles, human rights, and the rule of law in the country.

    Question 15. What is your assessment of corruption trends in 
Azerbaijan and efforts to address and reduce it by that government?

    Answer. Corruption is a problem in Azerbaijan, as it is in many 
countries of the former Soviet Union and around the world. The United 
States remains concerned about systemic corruption in government and 
throughout the economy. We welcome the Azerbaijani Government's 
decision to create the State Agency for Public Service and Social 
Innovations, and to establish ``ASAN''Service Centers (``easy'' in 
Azerbaijani) to combat petty corruption by improving transparency and 
efficiency in delivering basic government services. However, the 
Azerbaijani Government should continue to take steps to reduce 
corruption at all levels.

    Question 16. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Azerbaijan?

    Answer. Corruption is a matter we have raised consistently with the 
Azerbaijani Government and, if confirmed, I will continue to raise U.S. 
concerns with the Azerbaijani authorities. If confirmed, in my 
engagement with the Azerbaijani Government, I will push for progress in 
all areas crucial for strengthening the rule of law, including judicial 
independence, access to justice, citizens' awareness of rights, 
engagement on legal issues, and equal protection under the law; equal 
status in practice for prosecutors and defense attorneys; and systemic 
anti-corruption measures. Additionally, the State Department is 
committed combatting corruption with all of the tools at our disposal, 
including foreign assistance where possible.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Earle D. Litzenberger by Senator Jeanne Shaheen

    Question 1. The Azerbaijani Government has increasingly been 
cracking down on its political opposition, civil society, and media 
outlets. Reporters Without Borders ranks Azerbaijan 162 out of 180 
countries for press freedom. What can the U.S. do to support political 
reform in Baku? If confirmed, how will you engage with the Government 
in Baku to strengthen civil society and help to improve its record on 
human rights?

    Answer. If confirmed, consistent with Azerbaijan's constitution and 
international obligations and commitments, I will urge the Azerbaijani 
authorities to ensure respect for human rights and fundamental 
freedoms, including of peaceful assembly, association, religion or 
belief, and expression; to promote an environment conducive to a 
vibrant and peaceful civil society; to respect pluralism; and to foster 
judicial independence, fair trial guarantees, and access to justice. I 
look forward to working with all partners to advance these goals. 
Azerbaijan's progress in these areas would help to deepen our bilateral 
relationship and enhance the country's long-term security. As U.S. 
officials have previously stated, Azerbaijan's release of all those 
incarcerated for exercising their fundamental freedoms would be a good 
first step.
    Independent media are key to Azerbaijan's democratic and economic 
development, as are a vibrant civil society and pluralism. If 
confirmed, I will make among my first priorities to meet with 
independent, local media representatives, as well as with civil society 
representatives and political opposition figures. If confirmed, I will 
support continued public messaging to raise U.S. concerns in all of 
these areas.

    Question 2. How does the recent appointment of younger, more 
technocratic officials reflect concerns about the economy in 
Azerbaijan? What can Azerbaijan do to develop its non-gas economy?

    Answer. Diversification of Azerbaijan's economy away from its 
dependence on oil and gas exports will create more employment 
opportunities, provide a platform for greater long-term economic 
stability, and foster an improved, transparent business climate where 
U.S. firms have a level playing field. Azerbaijan has recognized the 
importance of economic diversification and has prioritized policies to 
this end, but much more hard work remains to effectively implement 
reforms. U.S. assistance programs in Azerbaijan support economic 
diversification, including in the agriculture and tourism sectors. For 
example, USAID's support to farmers and agribusinesses has increased 
and diversified Azerbaijan's agricultural exports, such that tomatoes 
and hazelnuts are now Azerbaijan's top exports after oil and gas.
    The United States also sponsors exchange programs such as the 
International Visitor Leadership Program and Special American Business 
Internship Training program to bring Azerbaijanis to the United States 
and demonstrate U.S. best practices in targeted areas, including 
agriculture, energy efficiency, information technology, and economic 
development. Alumni of these programs, as well as other younger, 
highly-educated Azerbaijanis, have gone on to occupy senior posts in 
the private sector and in the Azerbaijani Government, which has 
recognized the value of such experiences in developing the country's 
economy.

    Question 3. How important is Azerbaijan to European energy 
security? What role can the U.S. play in helping Azerbaijan secure its 
energy corridor that promotes energy diversity in Europe?

    Answer. Azerbaijan has long been an important U.S. partner on 
energy security, an area in which we share a common strategic interest. 
Azerbaijan clearly recognizes the value of having multiple routes to 
markets for the Caspian region's oil and gas. The Baku-Tbilisi-Ceyhan 
oil pipeline, which carries over 650,000 barrels of oil a day to 
Turkey, was an early success for energy diversity and for U.S.-
Azerbaijan cooperation.
    The United States strongly supports completion of the Southern Gas 
Corridor (SGC), which is poised to bring Caspian natural gas to Western 
Europe for the first time by 2020/21. The SGC will contribute to the 
diversification of Europe's energy import routes and sources, and 
Azerbaijan has been a leader in its development. Azerbaijan has to date 
invested over $9 billion in the building or expansion of the pipeline 
networks that comprise the SGC. This past May, President Trump 
congratulated Azerbaijani President Ilham Aliyev and Azerbaijan on the 
inauguration of the first gas flowing through the SGC. If confirmed, I 
will continue to support our close cooperation with Azerbaijan on 
energy security, including completion of the SGC and consideration of 
potential pipeline expansions to serve new markets and transport gas 
from additional sources.

    Question 4. In your view, is Russia playing a constructive or 
destructive role in the Nagorno-Karabakh dispute? What can the U.S. do 
to help bring the conflict finally to a conclusion?

    Answer. The U.S. Co-Chair of the OSCE Minsk Group cooperates 
constructively with the Russian and French Co-Chairs to help the sides 
reach a peaceful and lasting settlement to the Nagorno-Karabakh 
conflict. Both Russia and France have consistently and publicly urged 
the parties to the conflict to demonstrate restraint and work toward a 
peaceful settlement. The United States continues to believe the Minsk 
Group format provides the best opportunity and the most trusted process 
for the sides to advance a settlement.
    As a Co-Chair of the OSCE Minsk Group, the United States plays an 
active role in helping the sides find a peaceful and comprehensive 
settlement of this longstanding conflict, the resolution of which would 
usher in a new era of peace and prosperity for the people of the South 
Caucasus. U.S. policy remains clear: the only solution to this conflict 
is a negotiated settlement based on international law that includes 
adherence to the Helsinki Final Act principles of the non-use or threat 
of force, territorial integrity, and equal rights and self-
determination of peoples. If confirmed, I will ensure the U.S. Embassy 
in Azerbaijan continues to support the efforts of the OSCE Minsk Group 
to help the sides find a lasting solution to this conflict.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Earle D. Litzenberger by Senator Edward J. Markey

    Question 1. In a September 21, 2018 message to Prime Minister Nikol 
Pashinyan congratulating Armenia on its Independence Day, President 
Trump stated that ``The coming months bring opportunities to resolve 
the Nagorno-Karabakh conflict, which would create even more 
possibilities for U.S.-Armenian cooperation. As a member of the OSCE 
Minsk Group, the United States looks forward to working with you to 
find a lasting and peaceful resolution of this conflict.'' If 
confirmed, how would you support efforts to reach a peaceful 
resolution?

    Answer. As a Co-Chair of the OSCE Minsk Group, the United States 
plays an active role in helping the sides find a peaceful and 
comprehensive settlement of this longstanding conflict, the resolution 
of which would usher in a new era of peace and prosperity for the 
people of the South Caucasus. U.S. policy remains clear: the only 
solution to this conflict is a negotiated settlement based on 
international law that includes adherence to the Helsinki Final Act 
principles of the non-use or threat of force, territorial integrity, 
and equal rights and self-determination of peoples.
    If confirmed, I will ensure the Department of State continues to 
support the efforts of the OSCE Minsk Group to help the sides find a 
lasting solution to this conflict, and to ensure the implementation of 
concrete measures to reduce tensions and increase effective monitoring 
along the Line of Contact and the Armenia-Azerbaijan international 
border. The Department has been a strong advocate in the Minsk Group 
process for such confidence-building measures, which it believes would 
reduce violence in areas affected by the conflict.

    Question 2. And if confirmed, how would you support international 
efforts to persuade Azerbaijan to accept the proposals of the OSCE 
negotiating team, including the deployment of additional OSCE observers 
along the line of contact and the placement of OSCE-monitored advanced 
gunfire-locater systems and sound-ranging equipment to determine the 
source of the attacks along the line of contact?

    Answer. If confirmed, I will ensure the Department of State 
continues to support the efforts of the OSCE Minsk Group to help the 
sides find a lasting solution to this conflict, and to ensure the 
implementation of concrete measures to reduce tensions and increase 
effective monitoring along the Line of Contact and the Armenia-
Azerbaijan international border. The U.S., French, and Russian Co-
Chairs of the OSCE Minsk Group work actively to help the sides reduce 
tension in the region, and over the years they have advanced a number 
of confidence-building measures that would reduce violence and improve 
the climate for negotiations. Enhancing the effectiveness of the OSCE's 
monitoring efforts, including through an investigatory mechanism, is 
something the Co-Chairs have long supported and continue to discuss 
with the sides. If confirmed, I will support our U.S. Co-Chair for the 
OSCE Minsk Group, Andrew Schofer, in his efforts to develop and 
implement confidence-building measures to create an atmosphere that is 
conducive to progress in negotiations on a lasting settlement. The Co-
Chairs have emphasized to all sides that real compromises are needed to 
bring about a lasting, peaceful settlement, and the Co-Chairs' latest 
public statement expressed deep regret over the continuing and 
unnecessary loss of life resulting from this unresolved conflict.

    Question 3. Azerbaijan has one the worst track records among OSCE 
countries on treatment of the LGBTI community. If confirmed, how will 
you advance the cause of LGBTI rights in Azerbaijan? Additionally, 
given the Department's recent decision to no longer issue visas to 
same-sex partners of foreign diplomats and international organization 
employees working in the U.S., how will you ensure that exemptions for 
Azeri officials are properly applied?

    Answer. Governments have a responsibility to respect the human 
rights and fundamental freedoms of all individuals, including LGBTI 
persons. As the Universal Declaration of Human Rights states, all human 
beings are born free and equal in dignity and in rights. Advancing 
universal human rights is in our national interest, and as Secretary 
Pompeo has said, LGBTI persons deserve the same freedoms, protections, 
and respect as everyone else.
    With respect to Azerbaijan, if confirmed, I would consult closely 
with LGBTI human rights defenders on how best to support them in their 
advocacy, including through capacity building exchange programs like 
the International Visitor Leadership Program. I would not shy away from 
speaking out publicly and privately in support of the rights of all, 
including LGBTI persons, as the State Department spokesperson and other 
U.S. Government officials did following reports of the detention of 
LGBTI persons in Azerbaijan. If confirmed, I will continue to urge the 
Azerbaijani Government to uphold and respect its international human 
rights obligations and commitments.
    With respect to visas for same-sex domestic partners of diplomatic 
visa holders, if confirmed, I will work closely with my colleagues in 
the Office of Foreign Missions and Bureau of Consular Affairs to ensure 
the appropriate application of all U.S. visa laws and regulations, 
including with regard to visas for unmarried same-sex domestic partners 
of diplomatic visa holders. Within this framework, we will be ready to 
work with the Azerbaijani Government to explore viable options.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Eric George Nelson by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As Director of the Office of eDiplomacy at the Department 
of State, I promoted the office's sponsorship of TechCamps which helped 
citizens, civil society, and governments strengthen democracy and 
protect human rights. At TechCamps, we brought together technologists 
with civil society and citizen advocates in various countries and 
regions to help them identify ways to utilize technology to advance 
their causes. I convinced the Under Secretary for Public Diplomacy to 
adopt this pilot program as a permanent part of the State Department's 
program toolkit. Since that time, U.S. embassies have sponsored an 
additional 37 tech camps whose aims include advocacy and communication 
campaigns, elections and civic participation, good governance and 
transparency, human rights, media freedom, and promotion of peace and 
tolerance.
    As Deputy Chief of Mission of the U.S. Embassy in Costa Rica, I 
helped lead the embassy's broad engagement in support of human rights 
and democracy. In our work to improve security in Costa Rica and 
Central America, we focused on community policing, strengthening the 
judiciary and improving prison management to help Costa Rica protect 
the rights of all citizens. We placed a special emphasis on helping 
civil society and authorities address gender-based violence. I led our 
team to help Costa Rican youth launch TedXPuraVida Joven, an annual 
forum that encourages youth to engage as advocates for innovation and 
development in Central America. We helped the Government of Costa Rica 
design a project for online public procurement to help counter 
corruption. We also provided support to San Jose's Pride Parade to 
promote diversity and respect for the LGBT community.
    As Consul General in Munich, I was active in the U.S. Mission's 
efforts to reach out to Muslim communities, encouraging efforts in 
Germany for integration and promoting United States' values of 
religious tolerance. The Munich non-governmental organization IDIZEM 
recognized our efforts to promote interreligious dialogue with its 
Dialogue prize.
    Over the course of my career, I have been honest about my sexual 
orientation and an advocate for diversity and inclusion. My visibility 
alongside my partner provided encouragement to host governments to 
improve their treatment of sexual minorities. In 1992, I was a founding 
officer of Gays and Lesbians in Foreign Affairs Agencies, an affinity 
group that has advocated tirelessly for inclusion and equal employment 
opportunity.

    Question 2. What issues are the most pressing challenges you see to 
democracy or democratic development in Bosnia and Herzegovina? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. Human rights and corruption are among the most pressing 
challenges facing Bosnia and Herzegovina. The State Department's 2017 
Human Rights Report noted that the most significant human rights 
concerns in Bosnia and Herzegovina include harsh and life-threatening 
prison conditions; restrictions on expression and the press, including 
intimidation, and threats against journalists and media outlets; 
widespread government corruption; and crimes involving violence against 
minorities and lesbian, gay, bisexual, transgender, and intersex 
(LGBTI) individuals. If confirmed, I will work to strengthen adherence 
to our shared values and do everything in my power to combat 
intolerance and to promote religious freedom for all people. I also 
look forward to helping Bosnia and Herzegovina chart a path forward 
that benefits all citizens and meets democratic and European norms, 
including by addressing Sejdic-Finci and other rulings of the European 
Court of Human Rights. I will engage not only government officials and 
political parties, but also civil society and citizens in Bosnia and 
Herzegovina, utilizing the full range of our traditional diplomatic, 
foreign assistance, and public diplomacy tools.

    Question 3. What specific steps will you take--if confirmed--to 
support democracy in Bosnia and Herzegovina? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. If confirmed, I will continue to support Bosnia and 
Herzegovina on its Euro-Atlantic path. The path to European Union 
membership and a deeper relationship with NATO can only come with a 
strong commitment to democratic principles, including respect for rule 
of law and human rights, and the reforms that must come with this. Lack 
of political will is the biggest challenge I will face in Bosnia and 
Herzegovina. Corrupt politicians benefit from the status quo and have 
few incentives to make Bosnia and Herzegovina's political system more 
democratic, free, and fair. I also look forward to helping Bosnia and 
Herzegovina chart a path forward that benefits all citizens and meets 
democratic and European norms, including by addressing Sejdic-Finci and 
other rulings of the European Court of Human Rights.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will continue to utilize assistance from 
the State Department, USAID, and other agencies at post to strengthen 
the rule of law and democratic institutions, enhance government 
transparency and accountability, promote interethnic reconciliation, 
and increase Bosnia and Herzegovina's resilience to foreign malign 
influence. The Democracy Commission Small Grants program continues to 
be an important tool in empowering smaller, community-based 
organizations to advocate for reforms. If resources are available, I 
intend to use this tool to increase the capacity of civil society to 
fight against corruption, mobilize citizen participation in democratic 
processes, and support local initiatives that advance peace and 
stability. If confirmed, I will use our assistance tools to prioritize 
projects that best serve U.S. national interests and make Bosnia and 
Herzegovina a more functional partner.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Bosnia and Herzegovina? What steps will you take to pro-
actively address efforts to restrict or penalize NGOs and civil society 
via legal or regulatory measures?

    Answer. Civil society is an essential part of a free and democratic 
society. Therefore, I am firmly committed to further developing working 
relationships with the numerous non-governmental and community 
organizations in Bosnia and Herzegovina. With respect to the Leahy Law, 
I will, if confirmed, ensure the Department continues to thoroughly vet 
all individuals and units nominated to participate in U.S.-funded 
security assistance activities. Improving respect for human rights and 
the rule of law will be an important part of our efforts to build 
capacity in institutions providing security. If there are findings of 
credible information regarding gross violations of human rights, I will 
take the necessary steps in accordance with the law and Department 
policy.

    Question 6. If confirmed, do you commit to meet with 
democratically-oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. A strong democracy requires a strong political opposition 
and diversity of views and backgrounds. Bosnia and Herzegovina's 
opposition parties have a crucial role to play in realizing Bosnia and 
Herzegovina's Euro-Atlantic aspirations. If confirmed, I commit to 
meeting with any opposition figure working to move Bosnia and 
Herzegovina forward. I will also continue U.S. Embassy Sarajevo's 
efforts to increase the political participation of women, minorities, 
and youth.

    Question 7. Will you and your embassy team actively engage with 
Bosnia and Herzegovina on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Bosnia and Herzegovina?

    Answer. The U.S. Embassy in Sarajevo has a strong history of 
engaging the press and working to preserve freedom of expression and 
media pluralism. Media freedom continues to face challenges in Bosnia 
and Herzegovina, where political parties exert undue control on 
newspapers, television, and other media outlets. If confirmed, I will 
continue to advocate for freedom of the press, work to strengthen media 
freedom, to support investigative journalism, and meet regularly with 
members of the press.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. I understand that the United States--through our Embassy in 
Sarajevo--is already actively engaged at many levels, including through 
assistance programs, to support independent media voices, develop a 
public more discerning towards its media environment, and encourage a 
free and active exchange of ideas. If confirmed, I will continue this 
engagement.

    Question 9. Will you and your embassy teams actively engage with 
Bosnia and Herzegovina on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Legislation protects the right of labor groups to organize 
in Bosnia and Herzegovina. If confirmed, I will advocate as necessary 
for its full implementation.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Bosnia and 
Herzegovina, no matter their sexual orientation or gender identity? 
What challenges do lesbian, gay, bisexual, transgender and intersex 
(LGBTI) people face in Bosnia and Herzegovina? What specifically will 
you commit to do to help LGBTI people in Bosnia and Herzegovina?

    Answer. Governments have an obligation to protect, respect, and 
uphold the dignity and fundamental freedoms of all people--including 
LGBTI persons. The Universal Declaration of Human Rights states, all 
human beings are born free and equal in dignity and in rights. 
Advancing universal human rights is in our national interest, and as 
Secretary Pompeo has said, LGBTI persons deserve the same freedoms, 
protections, and respect as everyone else. Bosnia and Herzegovina's 
laws protect marginalized communities against hate crimes and bias-
motivated violence; however, LGBTI people continue to face violence and 
discrimination.
    If confirmed, my country team and I would consult closely with 
LGBTI human rights defenders on how best to support them in their work, 
including through public outreach and digital engagement to promote 
respect and acceptance. I would not shy away from speaking out publicly 
and privately in support of human rights for all, or from advocating 
for enhanced protections for LGBTI persons and other vulnerable 
populations.

    Question 11. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Bosnia and 
Herzegovina? Will you commit to meet with representatives of a diverse 
swath of religious groups and communities and to advocate for their 
ability to register and worship peacefully in the country?

    Answer. If confirmed, I will commit to meet with representatives 
from the various faith communities in Bosnia and Herzegovina (BiH). I 
view their leaders as important partners in the fight to counter 
violent extremism and ethno-nationalism in BiH. Over the last year, the 
State Department has worked closely with the Interreligious Council 
(IRC) to strengthen its capacity to monitor attacks on religious 
institutions and to promote peace, reconciliation, tolerance, and 
coexistence among the country's diverse religious and ethnic 
communities. I hope to build on these efforts to promote religious 
freedom. Development and drafting of the annual International Religious 
Freedom report is an excellent opportunity to highlight government and 
societal challenges faced by members of religious groups and places of 
worship around the country.

    Question 12. How will you seek to boost resilience to Russian 
Government meddling within Bosnian institutions and civil society? What 
types of U.S. assistance do you see as most critical in this regard? 
How will you address corrupt political and economic influence or other 
illicit dealings with Bosnian political actors that advance the 
Kremlin's agenda?

    Answer. Strong institutions, a healthy, free society, and a robust 
rule of law make a country less vulnerable to foreign malign influence. 
Assistance targeted at combating corruption and supporting media 
freedom is essential to exposing Russia's influence in Bosnia and 
Herzegovina. I hope to continue U.S. assistance programs to strengthen 
the capabilities of justice sector officials to combat corruption, 
including training on how to more vigorously investigate and prosecute 
cases. I fully support U.S. programs that counter disinformation by 
promoting independent, objective news and investigative journalism. It 
will also be critical to continue U.S. support for peacebuilding 
initiatives that counter Russia's efforts to exploit tensions between 
ethno-religious groups. If confirmed, I will continue my predecessor's 
efforts to publically condemn corruption and call out Russian malign 
influence.

    Question 13. More broadly, Bosnia is increasingly subject to malign 
influence by other foreign actors, including China, Turkey and the Gulf 
states, and even its neighbors Serbia and Croatia. What steps do you 
see as necessary to preserve space for Bosnia to pursue a liberal 
democratic path toward NATO and the EU, and to foster internal support 
and consensus for this path?

    Answer. The citizens of Bosnia and Herzegovina (BiH) overwhelmingly 
support the pursuit of EU membership, and deeper relationships with 
Euro-Atlantic institutions offer the brightest prospects for BiH's 
future. If confirmed, I will coordinate closely with like-minded 
international partners and encourage BiH's leaders to pursue the tough 
reforms needed to progress on that path and fully embrace Western 
democratic norms.

    Question 14. The Dayton Accords stopped the bloodshed of the 1990s 
but have proved insufficient for establishing a durable multi-ethnic, 
pluralist political system in the country. Meanwhile, leaders have 
exploited weaknesses in Bosnia's political system to stoke interethnic 
tensions. How do you think the United States can best help to spur 
momentum on constitutional and other political and electoral reforms to 
ensure that governance in Bosnia and Herzegovina is genuinely 
democratic and accountable?

    Answer. The citizens of Bosnia and Herzegovina deserve a well-
functioning government that works for them. As Bosnia and Herzegovina 
moves closer to Euro-Atlantic standards, streamlining decision-making 
and legislative processes will be necessary. The United States has a 
long history of encouraging political and constitutional reform, but 
timing and solid support of reform-minded players are essential for 
success. Any effort must be led by the citizens of Bosnia and 
Herzegovina themselves. If confirmed, I will continue the embassy's 
assistance targeting improvements in accountability, transparency, and 
respect for the rule of law. I will encourage political momentum for 
change and will support reform efforts that make the country more 
functional and bring it closer to democratic norms.
    Question 15. Bosnian legislators recently voted to reduce their 
potential vulnerability to be prosecuted for corruption, and the 
country's specialized state mechanism to deal with organized crime, 
corruption, and terrorism has declined in credibility and effectiveness 
since 2009. If confirmed, how would you use various punitive tools, 
including Bosnia-specific sanctions, the Global Magnitsky Act, and visa 
restrictions, to impose constraints on, and deter, corrupt actors?

    Answer. As I mentioned in my testimony, when local institutions 
fail to act, or if peace and stability are threatened, targeted 
sanctions can be an effective response. Over a hundred citizens of 
Bosnia and Herzegovina are subject to OFAC sanctions under Executive 
Order 13304, and last month State Department targeted corrupt 
politician Nikola Spiric for visa restrictions. These actions promote 
accountability in Bosnia and Herzegovina and remind both citizens and 
government officials that the international community is still 
watching, and still engaged. The authorities granted under the Global 
Magnitsky Act may be one useful tool in tackling the culture of 
impunity that exists across much of the globe.

    Question 16. How would you work with EU, the Office of the High 
Representative, and other international partners to more effectively 
address official corruption and organized crime and boost the Bosnian 
judiciary's will and capacity to punish it?

    Answer. International institutions have an important role to play 
in the fight against organized crime and corruption in Bosnia and 
Herzegovina. Our efforts are best served through close coordination and 
mutual support. One example is Embassy Sarajevo's support (financial, 
and through subject matter expertise) of the OSCE's efforts to monitor 
and publically document corruption cases. If confirmed, I hope to build 
on efforts such as these and to strengthen partnerships with the EU, 
Office of the High Representative, OSCE, and others working to 
strengthen the rule of law.

    Question 17. As presently staffed and deployed, EUFOR does not 
provide a credible deterrent to any potential threats against Bosnia 
and Herzegovina's peace or territorial integrity, and leaders in 
Republika Srpska regularly call for separating from the country. With 
the EUFOR mission up for renewal in the UNSC next month, where it is 
potentially subject to a Russian veto, how will you work with allies to 
strengthen EUFOR's deterrence capacity? In this regard, do you think 
that U.S. and other NATO forces should augment EUFOR?

    Answer. The United States firmly believes EUFOR is critical to 
deterring violence in Bosnia and Herzegovina; its primary mandate is to 
maintain a safe and secure environment. I will support efforts to 
maintain and strengthen EUFOR's contributions to stability in BiH. NATO 
Headquarters Sarajevo--commanded by U.S. Brigadier General Bissell--
works in close coordination with EUFOR. Having a U.S. general officer 
on the ground is a visible demonstration of U.S. commitment to BiH, but 
serves the additional purpose of ensuring that work by EUFOR and NATO 
are complementary rather than redundant.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Eric George Nelson by Senator Benjamin L. Cardin

    Question 1. Outgoing Republika Srpska President Milorad Dodik has 
led efforts questioning if not denying what the United States and the 
international community generally have recognized as a genocide at 
Srebrenica in July 1995. How will you respond to such assertions as the 
U.S. Ambassador to Bosnia and Herzegovina?

    Answer. As the State Department noted in its statement on August 
15, the International Criminal Tribunal for the former Yugoslavia and 
the International Court of Justice concluded that genocide occurred in 
Srebrenica in 1995. Realizing the scope of the tragedy of the past war 
and the importance of continuing to build trust and reconciliation, the 
United States remains fully committed to assisting authorities in 
Bosnia and Herzegovina, at the state, entity, and cantonal levels, to 
investigate and prosecute individuals responsible for crimes against 
all ethnic groups. The denial of established facts of prior wars 
impedes these objectives and does not assist the country's citizens. 
The horrific war of the 1990s reminds us that we must strive for a 
stable and prosperous future for the benefit of all citizens, 
regardless of ethnicity or religion.
    If confirmed, I will strongly oppose efforts to rewrite the facts 
of the war, to deny history, or to politicize tragedy. It is in the 
interest of all citizens of Bosnia and Herzegovina to reverse the trend 
of revering convicted war criminals as heroes, and to ensure their 
crimes continue to be publicly rejected.

    Question 2. Some have asserted that there is a new environment for 
hardline nationalists in Europe, including for example some Bosnian 
Serb leaders, to advance dangerous programs of ethnic discrimination 
and division, even border changes and separation. U.S. policy, however, 
has traditionally been based on the primacy of individual human rights 
for all, not the collective ethnic privileges of a selected few. Is 
that still the case, and will you stress in your work as Ambassador the 
need to protect the rights of the citizens of Bosnia and Herzegovina as 
individuals?

    Answer. Defending individual human rights and freedoms is central 
to U.S. foreign policy. The Dayton Peace Accords, which serves as the 
constitution of Bosnia and Herzegovina (BiH), also established a 
political model of three constituent peoples--Bosniaks, Serbs, and 
Croats--and two sub-state entities. BiH must find a way to balance the 
political equality of its three constituent peoples--as called for in a 
2000 ruling of the BiH Constitutional Court--with the rights of 
individuals, including those persons who are not or do not self-
identify as members of one of the three constituent peoples. If 
confirmed, I look forward to helping Bosnia and Herzegovina chart a 
path forward that benefits all citizens and meets democratic and 
European norms. I will also do my utmost to defend the human rights of 
the citizens of Bosnia and Herzegovina.
    Question 3. While respecting those collective privileges for 
Bosniaks, Serbs and Croats that are legally recognized, will you 
actively encourage reforms and other efforts to rid the country of the 
ethnic divisions which are holding the country back, including in 
regard to European integration?

    Answer. The United States remains committed to a unified, stable, 
democratic, and prosperous Bosnia and Herzegovina that is firmly 
anchored in Euro-Atlantic institutions and fully embraces Western, 
democratic values and norms. If confirmed, I will actively encourage 
reforms that move the country closer to the European Union and take a 
strong stand against attempts to divide the country with ethno-
nationalism.

    Question 4. For years now, Bosnia and Herzegovina has been in 
violation of its Organization for Security and Cooperation in Europe 
(OSCE) commitments as well as the European Convention for Human Rights 
by denying a substantial percentage of its citizens of their right to 
seek certain elected offices due to ethnic criteria. The Sejdic-Finci 
case, involving prominent citizens who sought to run for President but 
were denied the ability to do so because they are Romani or Jewish, was 
the first of several examples of this problem. As Ambassador, what will 
you do to get Bosnian political leaders to finally address and resolve 
this issue?

    Answer. Bosnia and Herzegovina must comply with the European Court 
of Human Rights' ruling in the Sejdic-Finci case, which found that 
provisions of the BiH Constitution that do not permit non-constituent 
peoples (those who do not identify as Serbs, Croats, or Bosniaks) to 
run for the presidency or upper house of parliament discriminate 
against minorities. In fact, there are several other court decisions--
both of the ECHR and the Constitutional Court of Bosnia and 
Herzegovina--that have yet to be implemented, due to lack of political 
will. These decisions are legally binding upon BiH and must be adopted 
into law.If confirmed, I will stress the importance of complying with 
these rulings. I will actively support efforts to help Bosnia and 
Herzegovina address these rulings through appropriate amendments to the 
country's constitutional and legislative frameworks.

    Question 5. For years now, Bosnia and Herzegovina has been in 
violation of its Organization for Security and Cooperation in Europe 
(OSCE) commitments as well as the European Convention for Human Rights 
by denying a substantial percentage of its citizens of their right to 
seek certain elected offices due to ethnic criteria. The Sejdic-Finci 
case, involving prominent citizens who sought to run for President but 
were denied the ability to do so because they are Romani or Jewish, was 
the first of several examples of this problem. Will you make it a 
priority in your work?

    Answer. If confirmed, I will prioritize efforts to defend human 
rights and advance political reforms that bring Bosnia and 
Herzegovina's political and legal framework into conformance with its 
international obligations, as well as improve the country's stability 
and functionality.

    Question 6. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Director of the Office of eDiplomacy at the Department 
of State, I promoted the office's sponsorship of TechCamps which helped 
citizens, civil society, and governments strengthen democracy and 
protect human rights. At TechCamps, we brought together technologists 
with civil society and citizen advocates in various countries and 
regions to help them identify ways to utilize technology to advance 
their causes. I convinced the Under Secretary for Public Diplomacy to 
adopt this pilot program as a permanent part of the State Department's 
program toolkit. Since that time, U.S. embassies have sponsored an 
additional 37 tech camps, whose aims include advocacy and communication 
campaigns, elections and civic participation, good governance and 
transparency, human rights, media freedom, and promotion of peace and 
tolerance.
    As Deputy Chief of Mission of the U.S. Embassy in Costa Rica, I 
helped lead the embassy's broad engagement in support of human rights 
and democracy. In our work to improve security in Costa Rica and 
Central America, we focused on community policing, strengthening the 
judiciary, and improving prison management, to help Costa Rica protect 
the rights of all citizens. We placed a special emphasis on helping 
civil society and authorities address gender-based violence.

    I led our team to help Costa Rican youth launch TedXPuraVida Joven, 
an annual forum that encourages youth to engage as advocates for 
innovation and development in Central America. We helped the Government 
of Costa Rica design a project for online public procurement to help 
counter corruption. We also provided support to San Jose's Pride Parade 
to promote diversity and respect for the LGBT community.
    As Consul General in Munich, I was active in the U.S. Mission's 
efforts to reach out to Muslim communities, encouraging efforts in 
Germany for integration and promoting United States' values of 
religious tolerance. The Munich non-governmental organization IDIZEM 
recognized our efforts to promote interreligious dialogue with its 
Dialogue prize.
    Over the course of my career, I have been honest about my sexual 
orientation and an advocate for diversity and inclusion. My visibility, 
alongside with my partner, provided encouragement to host governments 
to improve their treatment of sexual minorities. In 1992, I was a 
founding officer of Gays and Lesbians in Foreign Affairs Agencies, an 
affinity group that has advocated tirelessly for inclusion and equal 
employment opportunity.

    Question 7. What are the most pressing human rights issues in 
Bosnia and Herzegovina? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in Bosnia and 
Herzegovina? What do you hope to accomplish through these actions?

    Answer. The State Department's 2017 Human Rights Report noted that 
the most significant human rights concerns in Bosnia and Herzegovina 
include harsh and life-threatening prison conditions; restrictions on 
expression and the press, including intimidation, and threats against 
journalists and media outlets; widespread government corruption; and 
crimes involving violence against minorities and lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) individuals. If confirmed, 
I will work to strengthen adherence to our shared values and do 
everything in my power to combat intolerance and to promote religious 
freedom for all people. I will engage not only government officials and 
political parties, but also Bosnian civil society and citizens, 
utilizing the full range of our traditional diplomatic, assistance, and 
public diplomacy tools.

    Question 8. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Bosnia and 
Herzegovina in advancing human rights, civil society and democracy in 
general?

    Answer. Regrettably, divisions between ethnic and religious groups 
in Bosnia and Herzegovina exist and underpin a tacit segregation- most 
noticeable in the school systems. These divisions are at odds with the 
goal of the Dayton Peace Accords of a unified, multiethnic, democratic 
Bosnia and Herzegovina. Promoting this vision of Bosnia and Herzegovina 
will likely be my greatest challenge. However, it is one to which I am 
fully committed and look forward to tackling.

    Question 9. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Bosnia and Herzegovina? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Civil society is an essential part of a free and democratic 
society. Therefore, I am firmly committed to further developing working 
relationships with the numerous non-governmental and community 
organizations in Bosnia and Herzegovina. With respect to the Leahy Law, 
I will, if confirmed, ensure the Department continues to thoroughly vet 
all individuals and units nominated to participate in U.S.-funded 
security assistance activities. Improving respect for human rights and 
the rule of law will be an important part of our efforts to build 
capacity in institutions providing security. If there are findings of 
credible information regarding gross violations of human rights, I will 
take the necessary steps in accordance with the law and Department 
policy.

    Question 10. Will you and your embassy team actively engage with 
Bosnia and Herzegovina to address cases of key political prisoners or 
persons otherwise unjustly targeted by Bosnia and Herzegovina?

    Answer. According to the State Department's 2017 Human Rights 
Report, there were no reports of political prisoners or detainees and 
no indications that the Government or its agents committed arbitrary or 
unlawful killings, or caused `disappearances.' In the unlikely event 
that such an incident comes to light, I will, if confirmed, work 
tirelessly to investigate the situation, engaging government and other 
officials as necessary.

    Question 11. Will you engage with Bosnia and Herzegovina on matters 
of human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. If confirmed, I will sustain the United States' engagement 
with members of civil society in Bosnia and Herzegovina, including 
activists, non-governmental organizations, religious groups, and 
international organizations with representation in Bosnia that share 
our vision of a democratic, free, and inclusive society. These include 
(but are not limited to) organizations such as the Organization for 
Security Cooperation in Europe (OSCE), the United Nations, the Office 
of the High Representative for Bosnia and Herzegovina, the Council of 
Europe, and the European Union, as well as local civil society 
organizations.

    Question 12. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 13. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 14. Do you or do any members of your immediate family have 
any financial interests in Bosnia and Herzegovina?

    Answer. Neither I nor any of my immediate family members have any 
financial interests in Bosnia and Herzegovina.

    Question 15. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am committed to promoting an Embassy workplace that is 
tolerant and embraces diversity in all its forms. Diversity results in 
better, more creative decision-making. If confirmed, one of my 
priorities will be to build a diverse team. I hope to do this by 
encouraging Foreign Service officers from varied backgrounds and groups 
to bid on Embassy Sarajevo and contribute their energies and talents to 
our efforts. I also look forward to serving with and developing a team 
of Locally Employed Staff that embraces the ethnic, religious, and 
geographic diversity that make Bosnia and Herzegovina so unique. I will 
do my best to mentor all of my staff, both American and Bosnian, to 
achieve their full professional potential during my tenure.

    Question 16. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I intend to lead by example, and demonstrate 
my commitment to diversity and inclusion in all of my interactions with 
members of my team. Early in my tenure, I will establish my clear 
expectations regarding fairness, tolerance, and respect for all, and I 
will ensure that any behaviors that fail to meet this standard are 
quickly corrected. I look forward to the opportunity to provide a 
vision to my team of what a fair, respectful, and inclusive workplace 
looks like and how it benefits the work we do on behalf of the American 
people.

    Question 17. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Bosnia and 
Herzegovina specifically?

    Answer. As I noted in my testimony, corruption has a direct impact 
on the stability of a country. Corruption undermines public confidence 
in institutions and makes countries vulnerable to foreign malign 
influence and organized crime. Strengthening the rule of law in Bosnia 
and Herzegovina is a top U.S. priority for the country. Progress on 
other foreign policy goals can only happen if Bosnia and Herzegovina is 
governed by the rule of law. Bosnia and Herzegovina suffers from 
endemic corruption, which weakens all levels of government and the 
judiciary and stifles private enterprise. If confirmed, I intend to 
make anti-corruption efforts one of my top priorities.

    Question 18. What is your assessment of corruption trends in Bosnia 
and Herzegovina and efforts to address and reduce it by that 
government?

    Answer. Corruption pervades all levels of government in Bosnia and 
Herzegovina, broadly impacting public life--from the healthcare system, 
to education, employment, and the judiciary. A complex patronage 
network and weak rule of law allow corrupt politicians to maintain 
power and foster a culture of impunity. Thus far, the Government of 
Bosnia and Herzegovina has failed to take the issue of corruption as 
seriously as the United States would prefer. The number of corruption 
cases pursued by prosecutors remains woefully low. On the rare occasion 
that corruption investigations lead to convictions, lenient penalties, 
mostly in the form of suspended sentences, are especially problematic. 
If confirmed, I pledge to continue Embassy Sarajevo's efforts to 
strengthen the judiciary and improve government accountability and 
transparency.

    Question 19. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Bosnia and 
Herzegovina?

    Answer. If confirmed, I will continue Embassy Sarajevo's efforts to 
improve governance and tackle corruption by supporting programing that 
increases government transparency and accountability. Specifically, I 
intend to prioritize programs that strengthen the ability of law 
enforcement and judicial officials to investigate and prosecute 
corruption, increase civil society's capacity to monitor government 
performance and advocate for reforms, support cross-party cooperation 
on anti-corruption initiatives, advance efforts to introduce e-
governance solutions, and foster investigative journalism to expose 
corrupt practices.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Eric George Nelson by Senator Jeanne Shaheen

    Question 1. Republika Srpska leader Dodik has openly called for 
closer ties to Russia and met Russian President Putin last Sunday. How 
would you ensure that the Bosnian people and its leaders recognize the 
value of continuing on a Western path toward EU and NATO accession if 
Dodik becomes a more prominent force in the country?

    Answer. Membership in the European Union and in NATO are the best 
guarantors of Bosnia and Herzegovina's (BiH) future stability, 
security, and prosperity. One possible result of the general election 
on October 7 is Milorad Dodik's election as the next Serb member of the 
state-level tri-presidency. It is important to note that the three-
member presidency and other Dayton structures provide built-in checks 
and balances to prevent any individual or political grouping from 
unilaterally changing long-established policies of the Government of 
BiH, including its stated commitment to pursue Euro-Atlantic 
integration. Continued U.S. engagement and leadership is essential to 
ensuring BiH continues to advance on that path. If confirmed, I will 
coordinate closely with like-minded international and local partners to 
keep BiH on a path that fully embraces Western democratic norms.

    Question 2. Twenty-three years after the Dayton Peace Accords ended 
the war in Bosnia and Herzegovina, the country's ethnic groups are 
living more separately than ever. Has the Dayton structure 
institutionalized ethnic differences and made long-term resolution more 
difficult in Bosnia and Herzegovina? In your view, how should that 
structure be changed or replaced going forward for Bosnia to reach its 
Western goals?

    Answer. The citizens of Bosnia and Herzegovina deserve a well-
functioning government that works for them. The Dayton Accords brought 
peace to Bosnia and Herzegovina, and stability to the region as a 
whole. This stability provides the foundation for Bosnia and 
Herzegovina's pursuit of membership in Euro-Atlantic institutions such 
as NATO and the European Union. As the country moves closer to Euro-
Atlantic standards, streamlining decision-making and legislative 
processes will be necessary. The United States has a long history of 
encouraging political and constitutional reform, but timing and solid 
support of reform-minded local actors are essential for success. Any 
effort must be led by the citizens of Bosnia and Herzegovina 
themselves.BiH must find a way to balance the political equality of its 
three constituent peoples--as called for in a 2000 ruling of the state-
level Constitutional Court--with the rights of individuals, including 
those persons who are not or do not self-identify as members of one of 
the three constituent peoples. If confirmed, I look forward to helping 
Bosnia and Herzegovina chart a path forward that benefits all citizens.

    Question 3. Unemployment, especially youth unemployment, remains 
very high in Bosnia and Herzegovina and corruption is endemic. What can 
the United States do to break this cycle and help Bosnia provide both a 
better future for its young people and a better business climate that 
foreign investors can trust?

    Answer. Bosnia and Herzegovina must advance reforms to improve its 
business climate, attract greater foreign investment, and harness the 
capabilities of a young workforce that now prefers to head abroad for 
greater opportunities. To promote these goals, U.S. assistance programs 
advance trade policies, legislation, and regulatory reforms that align 
with EU and international standards, increase transparency, and reduce 
opportunities for corruption. In turn, these changes will establish a 
level playing field for U.S. investment and businesses. In addition, if 
confirmed, I will support U.S. programs that promote entrepreneurship 
by providing targeted assistance to help small businesses access 
finance, improve productivity, and utilize new technologies.



                               __________

                              NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 11, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:34 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Gardner, Young, and 
Murphy.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. The committee will come to order, and we are 
going to start the meeting. Senator Kaine is unavoidably 
detained at a security briefing, and so I was going to wait for 
him, but in lieu thereof, we will start. I am sure he will 
excuse us for that.
    So I want to welcome everyone to this hearing today. It is 
a pleasure to have all of these nominees before us today. And I 
want to thank each of you for being here today and for your 
willingness to serve. The countries you have been nominated to 
serve are tough posts. So I also would like to thank your 
families or the sacrifices they make in allowing you to pursue 
your roles as Ambassadors.
    Earlier this year, the President released a new National 
Security Strategy highlighting the reemergence of great power 
rivalry around the world. Over the next few decades, 
competition between the United States, China, and Russia will 
guide many U.S. policy decisions.
    As we know, great power competition occurs all across the 
world, and the posts you each have been nominated to represent 
some aspect of these challenges.
    Mr. Blome, Tunisia has peacefully achieved many political 
milestones since 2011, prompting observers to portray the 
country as the lone success of the Arab Spring. Internal 
political tensions, economic pressures, security threats and 
greater regional dynamics, nonetheless, pose ongoing 
challenges. Despite a relative lack of conflict, Tunisia 
remains a potential source of regional struggles among rival 
political ideologies and among violent extremist groups vying 
for prominence and recruits. The survival of the Arab Spring's 
most successful political transition depends on several 
factors. The recovery of the economy is by far the most 
important factor that will determine the survivability of the 
Tunisian revolution.
    Mr. Pommersheim, while Tajikistan has been a strong partner 
to the United States and international forces in efforts to 
bring security and peace to Afghanistan, the country remains 
fragile and in a vulnerable state. Tajikistan faces challenges, 
including border security, widespread corruption, inadequate 
health and education systems, and food and energy shortages. Of 
the former Soviet states, it has the lowest per capita gross 
domestic product and the highest percentage of people living in 
poverty. Many Tajiks travel to Russia and find work, and 
remittances account for over 30 percent of the GDP. Regional 
threats include violent extremism, terrorism, and the 
trafficking of weapons and narcotics. Given these conditions, 
Tajikistan must deal with both Russian and Chinese interests 
and influence.
    As these countries attempt to expand their spheres of 
influence, it is important that the United States remain 
attentive to developments there. Economic growth in Tajikistan 
is critical to achieving overall regional stability and to 
strengthening regional economic integration.
    Mr. Moser, Kazakhstan is becoming a central player in 
geopolitics. The country has always sought a multi-vectored 
foreign policy to balance competing interests from abroad. With 
Kazakhstan's involvement in China's Belt and Road Initiative, 
it has the ability to rebalance its relationship with Russia. 
The country has much to gain but could face challenges.
    As the United States implements the President's Central 
Asia economic policy, it is important that we not passively 
watch developments with Beijing and Moscow unfold but that we 
ensure this process protects Kazakhstan's interests, as well as 
U.S. interests.
    Again, these are all challenging posts, and I look forward 
to hearing your thoughts on how the United States can move 
forward with those countries.
    So with that, I would like to introduce all three of our 
nominees here today.
    Mr. Blome has been nominated to be Ambassador to Tunisia. 
Born in Illinois, Mr. Blome is a career member of the senior 
Foreign Service, having served as a diplomat since 1993. He has 
extensive experience, having previously served in Tunisia, as 
well as many of the neighboring countries, including Israel, 
Egypt, and Iraq.
    Mr. Pommersheim has been nominated to be Ambassador to 
Tajikistan. From Florida, Mr. Pommersheim is a career member of 
the Senior Foreign Service, class of counselor, having served 
in the State Department since 1990. He has served in several 
tough posts, including Kazakhstan, Russia, China, and has 
extensive foreign language skills.
    Ambassador Moser has been nominated to be Ambassador to 
Kazakhstan. Born in North Carolina, Mr. Moser is a career 
member of the senior Foreign Service class of minister-
counselor and has been with the Department since 1984. He has 
already served as Ambassador to Moldova, but has spent time in 
Kazakhstan, Ukraine, and Egypt and held several senior 
positions at the State Department.
    So with that, I would like to open the hearing and give 
each of you an opportunity. Mr. Blome, we will start with you 
and hear from our other nominees.

 STATEMENT OF DONALD ARMIN BLOME, OF ILLINOIS, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF TUNISIA

    Mr. Blome. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear before you 
today.
    I am honored that President Trump has nominated me to be 
the U.S. Ambassador to Tunisia, and I appreciate the confidence 
he and Secretary Pompeo have shown in me by making this 
nomination.
    My wife Debbie and my sons, Nicholas and Carl, are here 
with me today. My daughter Sarah could not be here. Like most 
Foreign Service families, they have shared in the adventure and 
the great pride of representing our country overseas, but also 
the burdens of disrupted schooling and careers, evacuations, 
and long separations. Few of us could do what we do without the 
support of our families, and I want to take this opportunity to 
thank them.
    If confirmed, my highest priority as U.S. Ambassador will 
be ensuring the safety and security of our people and their 
families and that of Americans living in and visiting Tunisia.
    In 2011, the Tunisian people rejected dictatorship and 
reset their country's path toward democracy. Since that time, 
U.S.-Tunisia ties have strengthened and expanded. Tunisia has 
consolidated its democratic changes, partnered with the United 
States in the fight against terrorism, and taken steps to 
stabilize and open its economy. Over $1.3 billion in U.S. 
investments since the revolution have reinforced this 
trajectory.
    If confirmed, I look forward to building on the strong 
foundations of the U.S.-Tunisia partnership to advance U.S. 
security and prosperity. This will require sustaining our 
security cooperation to counter terrorist threats, secure 
borders, and respond to instability in neighboring Libya. 
Additionally, this will require working with our Tunisian 
partners to press forward economic reforms for sustainable and 
inclusive growth, thereby increasing trade and investment 
opportunities for U.S. and Tunisian businesses. It will also 
require encouraging Tunisia's leaders to follow through on 
their democratic experiment, building the institutions needed 
for long-term success and stability.
    I will describe the three pillars of the U.S.-Tunisia 
relationship: security partnership, economic cooperation, and 
political support.
    A major non-NATO ally and a member of the Global Coalition 
to Defeat ISIS, Tunisia knows the real threat of terrorism. The 
United States has worked with the Tunisian military and police 
to empower a security sector capable of securing Tunisia's 
territory and population while respecting the rule of law and 
individual rights. Tunisia also faces the challenge of holding 
accountable its nationals who traveled to Iraq and Syria and 
Libya to engage in terrorist acts. With U.S. support, the 
Tunisian Government is enhancing its capabilities to 
investigate, prosecute, and incarcerate these individuals. If 
confirmed, I would work to expand this security and 
counterterrorism relationship, helping our Tunisian partners to 
stand as a force for stability.
    Tunisia's leaders have outlined a vision for inclusive and 
open economic growth, stronger anti-corruption measures, and a 
level playing field where U.S. and Tunisian companies can 
compete on the strength of their products and ideas. Tunisia's 
economic situation remains fragile as frustration with 
unemployment, the rising cost of living, and geographic 
disparities complicate the government's reform efforts. In 
partnership with the IMF, the Tunisian Government has begun 
undertaking changes to rationalize government spending, 
encourage private sector development, and ensure young 
Tunisians are able to participate in their country's success. 
If confirmed, I would prioritize advocacy for U.S. companies 
seeking to export or pursue investment opportunities in an 
expanding Tunisian economy.
    Finally, while Tunisia remains firmly pointed toward 
democracy, difficult steps remain to consolidate its political 
transformation. In 2014, Tunisia held its first free and fair 
presidential and parliamentary elections and finalized a new 
constitution. And Tunisians recently voted in their first-ever 
municipal elections. Despite this progress, the hard work 
continues: finalizing a constitutional court, tackling 
corruption, and ensuring that steps to improve accountability 
in the private sector do not impinge on civil society and 
nongovernmental activities. Elections slated for next year will 
be watched as a signal of the Tunisian democracy's maturity and 
robustness.
    Thank you, Mr. Chairman and members of the committee, for 
giving me this opportunity to address you. If confirmed, I 
would look forward to leading the dynamic and talented team of 
U.S. professionals at U.S. Embassy Tunis as we work to advance 
U.S. priorities there.
    [Mr. Blome's prepared statement follows:]


                Prepared Statement of Donald Armin Blome

    Chairman Risch, Ranking Member Kaine, members of the committee, 
thank you for the opportunity to appear before you today. I am honored 
that President Trump nominated me to be the U.S. Ambassador to Tunisia, 
and I appreciate the confidence he and Secretary Pompeo have shown in 
me by making this nomination.
    My wife Debbie, and my sons, Nicholas and Carl, are here with me 
today. My daughter could not be here. Like most Foreign Service 
families, they have shared in the adventure and the great pride of 
representing our country overseas, but also the burdens of disrupted 
schooling and careers, evacuations, and long family separations. Few of 
us could do what we do without the support of our families, and I want 
to use this opportunity to thank them.
    If confirmed, my highest priority as U.S. Ambassador will be 
ensuring the safety and security of our people and their families, and 
that of Americans living in and visiting Tunisia.
    In 2011, the Tunisian people rejected dictatorship and reset their 
country's path toward democracy. Since that time, U.S.-Tunisia ties 
have strengthened and expanded. Tunisia has consolidated its democratic 
changes, partnered with the United States in the fight against 
terrorism, and taken steps to stabilize and open its economy. Over $1.3 
billion in U.S. investments since its revolution have reinforced this 
trajectory.
    If confirmed, I look forward to building on the strong foundations 
of the U.S.- Tunisia partnership to advance U.S. security and 
prosperity. This will require sustaining our security cooperation to 
counter terrorist threats, secure borders, and respond to instability 
in neighboring Libya. Additionally, this will require working with our 
Tunisian partners to press forward economic reforms for sustainable and 
inclusive growth, thereby increasing trade and investment opportunities 
for U.S. and Tunisian businesses. It will also require encouraging 
Tunisia's leaders to follow through on their democratic experiment, 
building the institutions needed for long-term success and stability.
    Let me describe the three pillars of the U.S.-Tunisia relationship: 
security partnership, economic cooperation, and political support.
    A major non-NATO ally and member of the Global Coalition to Defeat 
ISIS, Tunisia knows the real threat of terrorism. The United States has 
worked with the Tunisian military and police to empower a security 
sector capable of securing Tunisia's territory and population while 
respecting the rule of law and individual rights. Tunisia also faces 
the challenge of holding accountable its nationals who traveled to 
Iraq, Syria, and Libya to engage in terrorist acts. With U.S. support, 
the Tunisian Government is enhancing its capabilities to investigate, 
prosecute, and incarcerate these individuals. If confirmed, I would 
work to expand this security and counterterrorism relationship, helping 
our Tunisian partners to stand as a force for stability.
    Tunisia's leaders have outlined a vision for inclusive and open 
economic growth, stronger anti-corruption measures, and a level playing 
field where U.S. and Tunisian companies can compete on the strength of 
their products and ideas. Tunisia's economic situation remains fragile 
as frustration with unemployment, the rising cost of living, and 
geographic disparities complicate the Government's reform efforts. In 
partnership with the IMF, the Tunisian Government has begun undertaking 
changes to rationalize government spending, encourage private sector 
development, and ensure young Tunisians are able to participate in 
their country's success. If confirmed, I would prioritize advocacy for 
U.S. companies seeking to export or pursue investment opportunities in 
Tunisia.
    Finally, while Tunisia remains firmly pointed toward democracy, 
difficult steps remain to consolidate its political transformation. In 
2014, Tunisia held its first free and fair presidential and 
parliamentary elections and finalized a new constitution, and Tunisians 
recently voted in their first-ever municipal elections. Despite this 
progress, the hard work continues: finalizing the constitutional court, 
tackling corruption, and ensuring that steps to improve accountability 
in the private sector do not impinge on civil society and non-
governmental activities. Elections slated for next year will be watched 
as a signal of the Tunisian democracy's maturity and robustness.
    Thank you, Mr. Chairman, Ranking Member Kaine, and members of the 
committee, for giving me the opportunity to address you. If confirmed, 
I look forward leading the dynamic and talented team of U.S. 
professionals at U.S. Embassy Tunis as we work to advance U.S. 
priorities there.
    I would be happy to answer any questions.


    Senator Risch. Thank you very much, Mr. Blome.
    Mr. Moser, we would like to hear your thoughts on 
Kazakhstan, please.

 STATEMENT OF HON. WILLIAM MOSER, OF NORTH CAROLINA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
 OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF KAZAKHSTAN

    Ambassador Moser. Mr. Chairman, members of the committee, 
it is a honor and a privilege to appear before you today as the 
President's nominee to be Ambassador to the Republic of 
Kazakhstan. I am honored by the trust and confidence the 
President and Secretary Pompeo have placed in me with this 
nomination. If confirmed, I look forward to working closely 
with Congress to advance our country's interests in Kazakhstan 
and to further strengthen the enhanced strategic partnership 
with Kazakhstan set by President Trump in his meeting with 
Kazakhstan's President Nazarbayev in January of this year.
    I want to introduce my wife Marie and my daughter Rebecca. 
Unfortunately, my two sons could not be with us today, but we 
are all very pleased to return to Kazakhstan where I served 20 
years ago. Marie and I and our children have fond memories of 
our time there.
    For more than a quarter century, Kazakhstan has been a 
valued friend and a strategic partner of the United States in 
Central Asia. We were pleased to be the very first country to 
recognize Kazakhstan's independence on Christmas Day 1991. 
Sovereign, independent, and dynamic, Kazakhstan over the past 
nearly 27 years has worked diligently to strengthen its 
economy, investing wisely in the future through ambitious 
education and infrastructure projects. A country the size of 
Western Europe and the ninth largest country in the world, 
Kazakhstan is geographically strategic, ethnically diverse, and 
resource rich. Its population is young, energetic, and 
increasingly connected with the world around them.
    For the United States, our strategic goals in Kazakhstan 
are to strengthen Kazakhstan's sovereignty, independence, and 
territorial integrity, and to support Kazakhstan's development 
as a prosperous, stable, and democratic state that is 
integrated into the world economy and that cooperates with its 
neighbors, the United States, and our partners to advance 
regional and global security. The United States and Kazakhstan 
have worked closely to pursue these ambitious goals. Following 
the renewed commitments of our two countries' presidents, if 
confirmed, I look forward to further enhancing our engagement 
as strategic partners.
    U.S. companies have long recognized Kazakhstan's potential 
and today have a strong history of cooperation with Kazakhstan 
to develop its tremendous oil and gas resources. United States' 
investment in Kazakhstan has grown to nearly $30 billion, 
making Kazakhstan an important economic partner in the region. 
If confirmed, I look forward to strengthening U.S.-Kazakhstan 
commercial ties and to working with Kazakhstan in sectors like 
agriculture, manufacturing, and IT services as it diversifies 
its economic base.
    Kazakhstan has been a key supporter of our South Asia 
strategy, providing crucial support for our forces in 
Afghanistan and denying safe haven for terrorists. Kazakhstan 
continues to provide critical logistical support and access for 
our troops fighting ISIS and the Taliban in Afghanistan. We 
appreciate Kazakhstan's work to train and educate Afghan 
civilian specialists and to empower women in Afghanistan's 
economy. Kazakhstan can be proud of its work to focus global 
attention on Afghanistan and Central Asia during its rotating 
membership on the United Nations Security Council, which will 
successfully conclude this December.
    Since Kazakhstan took the courageous step to voluntarily 
renounce its nuclear weapons after independence, the United 
States and Kazakhstan have worked in continuous partnership for 
more than a quarter century to safely and securely manage this 
part of its Soviet legacy. Kazakhstan has consistently been a 
leading voice for nonproliferation, working to ensure a safer 
and healthier future for the children of Kazakhstan and for the 
world. Kazakhstan today is a valued partner in our efforts to 
rid the Korean Peninsula of nuclear weapons.
    I first served in Kazakhstan in 1996 in our then-embassy in 
Almaty as a management officer and then as energy attache. And 
as you have mentioned, Senator Risch, I have also served as 
Ambassador to Moldova. If confirmed, I intend to draw on my 
years of experience in order to further deepen our relationship 
with Kazakhstan and also to effectively manage the embassy. I 
have had years of experience in managing organizations within 
the Department of State of hundreds of employees, and I will 
bring that skill to my job in Kazakhstan to make sure that we 
have an effective diplomatic platform that serves the United 
States' interests and does the best job we can of strengthening 
our long-term strategic partnership with the people of 
Kazakhstan.
    Thank you very much.
    [Ambassador Moser's prepared statement follows:]


              Prepared Statement of Hon. William H. Moser

    Mr. Chairman, Ranking Member Kaine, and members of the committee, 
it is an honor and a privilege to appear before you today as the 
President's nominee to be Ambassador to the Republic of Kazakhstan.
    I am honored by the trust and confidence the President and 
Secretary Pompeo have placed in me with this nomination. If confirmed, 
I look forward to working closely with Congress to advance our 
country's interests in Kazakhstan and to further strengthen the 
enhanced strategic partnership with Kazakhstan set by President Trump 
in his meeting with Kazakhstan's President Nazarbayev in January of 
this year.
    I want to introduce my wife Marie. We are very pleased to return to 
Kazakhstan, where I served 20 years ago. Marie and I and our children 
have fond memories of our time there.
    For more than a quarter century, Kazakhstan has been a valued 
friend and a strategic partner of the United States in Central Asia. We 
were pleased to be the first country to recognize Kazakhstan's 
independence on Christmas Day 1991.
    Sovereign, independent, and dynamic, Kazakhstan over the past 
nearly 27 years has worked diligently to strengthen its economy, 
investing wisely in its future through ambitious education and 
infrastructure projects. A country the size of Western Europe and the 
ninth largest country in the world, Kazakhstan is geographically 
strategic, ethnically diverse, and resource rich. Its population is 
young, energetic, and increasingly connected with the world around 
them.
    For the United States, our strategic goals in Kazakhstan are to 
strengthen Kazakhstan's sovereignty, independence, and territorial 
integrity, and to support Kazakhstan's development as a prosperous, 
stable, and democratic state, that is integrated into the world economy 
and that cooperates with its neighbors, the United States, and our 
partners to advance regional and global security. The United States and 
Kazakhstan have worked closely to pursue these ambitious goals.
    Following the renewed commitments of our two countries' presidents, 
if confirmed, I look forward to further enhancing our engagement as 
strategic partners.
    U.S. companies have long recognized Kazakhstan's potential and 
today have a strong history of cooperation with Kazakhstan to develop 
its tremendous oil and gas resources. United States' investment in 
Kazakhstan has grown to nearly 30 billion dollars, making Kazakhstan an 
important economic partner in the region. If confirmed, I look forward 
to strengthening U.S.-Kazakhstan commercial ties and to working with 
Kazakhstan in sectors like agriculture, manufacturing, and IT services 
as it diversifies its economic base.
    Kazakhstan has been a key supporter of our South Asia strategy, 
providing crucial support for our forces in Afghanistan and denying 
safe haven for terrorists.
    Kazakhstan continues to provide critical logistical support and 
access for our troops fighting ISIS and the Taliban in Afghanistan. We 
appreciate Kazakhstan's work to train and educate Afghan civilian 
specialists, and to empower women in Afghanistan's economy. Kazakhstan 
can be proud of its work to focus global attention on Afghanistan and 
Central Asia during its rotating membership on the U.N. Security 
Council, which will successfully conclude this December.
    Since Kazakhstan took the courageous step to voluntarily renounce 
its nuclear weapons after independence, the United States and 
Kazakhstan have worked in continuous partnership for more than a 
quarter century to safely and securely manage this part of its Soviet 
legacy. Kazakhstan has consistently been a leading voice for 
nonproliferation, working to ensure a safer and healthier future for 
the children of Kazakhstan and for the world. Kazakhstan today is a 
valued partner in our efforts to rid the Korean Peninsula of nuclear 
weapons.
    I first served in Kazakhstan in 1996, in our then-Embassy in Almaty 
as a management officer and then as energy attache. I have also served 
in other post-Soviet states, most recently as Ambassador to Moldova. If 
confirmed, I intend to draw on my years of experience in the region to 
work with the Government of Kazakhstan and to reach out to the people 
of Kazakhstan to ensure that the already strong and dynamic United 
States-Kazakhstan partnership continues to grow and strengthen. I will 
work to enhance people-to-people ties between United States and 
Kazakhstan and to continue our partnership with Kazakhstan on its 
ambitious education reform program to create a trilingual society, 
comfortable and linguistically capable in Kazakh, English and Russian.
    Mutual interest and mutual respect underlie our relations with 
Kazakhstan. Kazakhstan is a regional and global leader in its own 
right; Kazakhstan is in no one's sphere of influence. Historic, 
cultural and economic ties with Russia are important to Kazakhstan, but 
Kazakhstan is not defined by any one relationship or neighbor, whether 
near or far. The United States' example of a prosperous, rule based 
democracy that has built durable economic growth alongside social and 
political stability is an attractive model that speaks for itself. 
Kazakhstan's future is bright, and it is for Kazakhstan to choose its 
path. The United States will always be a reliable and principled 
partner for Kazakhstan's efforts to advance market reform and its 
development into a free, democratic society respectful of the rights 
and choices of its citizens.
    For the last three years, I have been the senior career official 
within the State Department's Bureau of Overseas Building Operations. 
From that position, I have worked to ensure that State Department 
facilities around the world are safe, secure, and operationally 
effective, so that the U.S. Government can best represent our country, 
its policies, and people abroad. If confirmed, I pledge that, as 
Ambassador, the safety and security of our mission in Kazakhstan and of 
all its personnel will be one of my highest priorities. I will also 
ensure that the mission is a place where no one should ever suffer from 
discrimination, harassment or exploitation of any kind. I know from 
supervising organizations with hundreds of employees, that my personal 
example is essential to ensure that every employee is treated with 
respect and that his or her contributions are valued. If confirmed, I 
would maintain and promote the highest standards of ethical conduct and 
security.
    Mr. Chairman, Ranking Member Kaine, I thank you again for the 
opportunity to share my thoughts about the relationship with 
Kazakhstan. If confirmed, I look forward to working closely with you 
and this committee.
    I would be happy to answer any questions you may have.


    Senator Risch. Thank you, Mr. Moser.
    Mr. Pommersheim, your thoughts on Tajikistan, please.

STATEMENT OF JOHN MARK POMMERSHEIM, OF FLORIDA, A CAREER MEMBER 
   OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
        STATES OF AMERICA TO THE REPUBLIC OF TAJIKISTAN

    Mr. Pommersheim. Mr. Chairman and members of the committee, 
good morning. It is a true honor and privilege to appear before 
you today as the nominee to be the United States Ambassador to 
the Republic of Tajikistan.
    I deeply appreciate the opportunity to testify this morning 
and am humbled by the confidence that President Trump and 
Secretary Pompeo have placed in me. If confirmed, I look 
forward to working with this committee and other Members of 
Congress to advance the interests of the United States in 
Tajikistan.
    With the chairman's indulgence, I want to mention my 
gratitude for the support and love of my family here today. 
They enabled me to pursue work for the United States abroad 
over the last 28 years. My wife Natalia has been a pillar of 
support and love for over 24 years, raising our three sons in 
often challenging environments overseas. Our eldest son Arthur 
is beginning his career as a U.S. naval officer on board a U.S. 
nuclear-powered submarine. Andrew is finishing his studies in 
an Air Force ROTC program at the University of Maryland. James 
just started as a freshman at the College of Charleston.
    I have had the honor to serve as a career Foreign Service 
officer for the last 28 years, and throughout my career, I have 
had the chance to work with many fine Americans in all branches 
of government on promoting universal values such as rule of law 
and the protection of human rights and dignity. The teams I 
have been privileged to lead and work with have advanced U.S. 
security and economic goals in countries across Europe and 
Asia. If confirmed, I would draw on this experience as 
Ambassador to Tajikistan, taking a whole-of-government approach 
to solving problems such as strengthening counterterrorism 
cooperation and advancing good governance.
    Having previously served in the neighboring country of 
Kazakhstan as deputy chief of mission, I have seen firsthand 
the difficult decisions and incredible effort necessary to 
build a sovereign nation in the short span of 27 years and the 
important role that the United States plays as a partner that 
respects the sovereignty, independence, and territorial 
integrity of its friends in the region. If confirmed, further 
strengthening the foundation of partnership and goodwill 
between the people of the United States and the people of 
Tajikistan will be my priority.
    Mr. Chairman, Tajikistan is a country of extraordinary 
natural beauty and rich cultural heritage, but as you pointed 
out in your opening statement, it faces many challenges.
    Tajikistan suffered a devastating civil war, which ended 
just over 20 years ago, with health and human development 
indices still impacted. Per capita, Tajikistan remains in the 
poorest quarter of countries in the world and its GDP is the 
lowest in Central Asia. It imports close to 70 percent of its 
food. Youth under 24 are 53 percent of Tajikistan's population, 
a number that is projected to grow. Unable to find work in 
Tajikistan, close to 1 million migrant laborers leave the 
country to find work in Russia and other countries where the 
lack of a support system can leave them vulnerable to terrorist 
recruiting. And Tajikistan has a porous 800-mile long border 
with Afghanistan and problems such as the illegal narcotics 
trade, trafficking in persons, the spread of terrorism, and 
violent extremism are deeply concerning.
    If confirmed, I will work to strengthen our partnership 
with Tajikistan to address these serious challenges. Tajikistan 
has come a long way since the dark days of the civil war, and 
with over 25 years of partnership, Americans and Tajiks can 
look back on a period of significant progress that helped 
transform Tajikistan and strengthen its independence and 
sovereignty. Continued progress in building out that 
partnership will contribute to stability both in Tajikistan and 
in the wider Central Asian region.
    Tajikistan's long southern border abuts the most restive 
regions of Afghanistan, provinces that harbor Islamic State and 
other terrorist groups, as well as Taliban-controlled 
territory. For years, the United States has been the foremost 
international supporter of training and infrastructure for 
Tajikistan's border guard service. In addition, the United 
States has been a strong supporter of justice and law 
enforcement reform. As Afghanistan's northern neighbor, 
Tajikistan is crucial to that country's economic development 
and its future as a secure, stable, and prosperous state in a 
broader Central Asia that is also flourishing.
    This is where Tajikistan's future and the future of the 
region lies, in the connections, sometimes rebuilt, sometimes 
newly established, of people, of businesses, of infrastructure, 
of administration, of trade and transit. The United States has 
been a proactive supporter of connectivity. Under the 
President's South Asia Strategy and the National Security 
Strategy, regional connectivity has taken on a new energy as we 
seek to capitalize on momentum among states and to harness 
development and economic growth as a bulwark against 
radicalization.
    Hand in hand with intensive cooperation on key economic and 
security issues, we must as partners have a frank, 
constructive, and productive dialogue on Tajikistan's 
international obligations on freedom of religion and other 
fundamental human freedoms. A nation cannot be truly secure 
while suppressing independent voices and basic human rights.
    Mr. Chairman, if confirmed, my number one concern will 
always be the safety of our embassy staff at Embassy Dushanbe 
and all U.S. citizens in Tajikistan. As this committee's 
members are aware, in July of this year, four tourists, two of 
them United States citizens, were targeted and killed by 
attackers in Tajikistan who had pledged their loyalty to the 
Islamic State. I want to express condolences to the families of 
those who died and suffered in the attack. We stand with those 
families, and U.S. agencies are working closely with Tajik 
authorities in the ongoing investigation. If confirmed, one of 
my highest priority goals will be, as President Trump has 
recently asked of President Rahmon, deepening our information 
sharing and counterterrorism cooperation with Tajikistan.
    Mr. Chairman, if confirmed, I will always be available to 
and welcome the opportunity to work with you, your committee, 
and other Members of Congress, and professional staff to 
advance the United States' interests in Tajikistan and 
throughout the region.
    Thank you very much again for the opportunity to appear 
before you, and I look forward to questions.
    [Mr. Pommersheim's prepared statement follows:]


              Prepared Statement of John Mark Pommersheim

    Mr. Chairman and Members of the committee, it is a true honor and 
privilege to appear before you today as the nominee for the United 
States' Ambassador to the Republic of Tajikistan.
    I deeply appreciate the opportunity to testify this morning, and am 
humbled by the confidence that President Trump and Secretary Pompeo 
have placed in me. If confirmed, I look forward to working with this 
committee and other Members of Congress to advance the interests of the 
United States in Tajikistan.
    With the Chairman's indulgence, I want to mention my gratitude for 
the support and love of my family (here today) that enabled me to 
pursue work for the United States abroad. My father, James Pommersheim, 
a professor at Bucknell University for 35 years, helped me understand 
the importance of family and service to others. My wife Natalya has 
been a pillar of support and love for over 24 years, raising our three 
sons in often challenging environments overseas. Our eldest son Arthur 
will begin his career as an officer on board the U.S. nuclear submarine 
USS Missouri, homeported in Pearl Harbor, HI. Andrew is finishing his 
studies and an ROTC program at the University of Maryland. James just 
started as a freshman at the College of Charleston (and is hopefully 
not missing too many mid-semester class assignments by flying in 
yesterday to support his Dad).
    I have had the honor to serve as a career Foreign Service Officer 
for the last 28 years. Throughout my career, I have had the chance to 
work with many fine Americans in all branches of government, on 
promoting universal values such as rule of law, and the protection of 
human rights and dignity. The teams I have been privileged to lead and 
work with have advanced U.S. security and economic goals in countries 
across Europe and Asia. If confirmed, I would draw on this experience 
as Ambassador to Tajikistan, taking a whole-of-government approach to 
working with our partners to solve problems such as strengthening 
counter terrorism cooperation and advancing good governance.
    Having previously served in the neighboring country of Kazakhstan 
as deputy chief of mission, I have seen firsthand the difficult 
decisions and incredible effort necessary to build a sovereign nation 
in the short span of 27 years, and the important role that the United 
States plays as a partner that respects the sovereignty, independence, 
and territorial integrity of its friends in the region. If confirmed, 
further strengthening the foundation of partnership and goodwill 
between the people of the United States and the people of Tajikistan 
will be my priority.
    Mr. Chairman, Tajikistan is a country of extraordinary natural 
beauty and rich cultural heritage, but it faces many challenges.
    Tajikistan suffered a devastating civil war, which ended just over 
20 years ago, with health and human development indices still impacted. 
Per capita, Tajikistan remains in the poorest quarter of countries in 
the world and its GDP is the lowest in Central Asia. Youth under 24 are 
53 percent of Tajikistan's population--a number that will grow. 
Tajikistan has a porous 800-mile long border with Afghanistan, and 
problems such as the illegal narcotics trade, trafficking in persons, 
the spread of terrorism, and violent extremism are deeply concerning.
    If confirmed, I will work to strengthen our partnership with 
Tajikistan to address these serious challenges. Tajikistan has come a 
long way since the dark days of the civil war. With over 25 years of 
partnership, Americans and Tajiks can look back on a period of 
significant progress that helped transform Tajikistan and strengthen 
its independence and sovereignty. Continued progress in building out 
that partnership will contribute to stability both in Tajikistan and in 
the wider Central Asian region.
    A Soviet-holdover focus on cash crops and Tajikistan's stark 
geographic landscape--nearly 93 percent mountainous--constrains the 
country's ability to feed its citizens. Tajikistan imports 70 percent 
of its foodstuffs, and U.S. development assistance to Tajikistan 
includes a strong emphasis on sustainable agriculture and high-nutrient 
farming. Unable to find work in Tajikistan, close to one million 
migrant laborers leave the country to find work in Russia and other 
countries, where the lack of a support system can leave them vulnerable 
to terrorist recruiting.
    Tajikistan's long southern border abuts the most restive regions of 
Afghanistan, provinces that harbor Islamic State and other terrorist 
groups as well as Taliban-controlled territory. For years, the United 
States has been the foremost international supporter of training and 
infrastructure for Tajikistan's Border Guard service. In addition, the 
United States has been a strong supporter of justice and law 
enforcement reform. As Afghanistan's northern neighbor, Tajikistan is 
crucial to that country's economic development and its future as a 
secure, stable, and prosperous state in a broader Central Asia that is 
also flourishing.
    This is where Tajikistan's future and the future of the region 
lies--in the connections, sometimes rebuilt, sometimes newly 
established, of people, of businesses, of infrastructure and 
administration, of trade and transit. The United States has been a 
proactive supporter of connectivity. Under the President's South Asia 
Strategy and National Security Strategy, regional connectivity has 
taken on new energy and urgency as we seek to capitalize on momentum 
among states and to harness development and economic growth as a 
bulwark against radicalization--and as a path toward a better future 
for the region's younger generations. The United States actively 
participates in the ``C5+1'' regional diplomatic platform that brings 
together the United States and the five states of Central Asia. This 
platform catalyzes economic, environmental and security cooperation 
through assistance and engagement.
    Hand-in-hand with intensive cooperation on key economic and 
security issues, we must as partners have a frank, constructive--and 
productive--dialogue on Tajikistan's international obligations on 
freedom of religion and other fundamental human freedoms. A nation 
cannot be truly secure while suppressing independent voices and basic 
human rights.
    If confirmed, my number one concern will always be the safety of 
our embassy staff at U.S. Embassy Dushanbe and all U.S. citizens in 
Tajikistan. As this committee's members are aware, in July of this year 
four tourists--two of them U.S. citizens--were targeted and killed by 
attackers in Tajikistan who had pledged their loyalty to the Islamic 
State. I want to express condolences to the families of those who died 
and suffered in the attack. We stand with the families of the victims, 
and U.S. agencies are working closely with Tajik authorities in the 
ongoing investigation. If confirmed, one of my highest priority goals 
will be, as President Trump has recently asked of President Rahmon, 
deepening our information-sharing and counterterrorism cooperation with 
Tajikistan.
    Mr. Chairman, if confirmed, I will always be available to and 
welcome the opportunity to work with you, the committee, and other 
Members of Congress to advance the United States' interests in 
Tajikistan and throughout the region.
    Thank you very much for the opportunity to appear before you today. 
I look forward to the committee's questions.


    Senator Risch. Thank you very much. Thanks to each of you, 
and again, especially thanks to your families.
    I have got a few questions and we will see if Senator Kaine 
shows up or others who may have some questions.
    Mr. Blome, in Tunisia, the president's secular party has 
had a fragile government put together with the Islamists Party. 
And reports are that that has gone asunder. Can you enlighten 
us on that and tell us how that is going to affect the country 
in your judgment?
    Mr. Blome. Thanks very much for that question.
    I think to put in context what has happened, what is very 
important to think about in terms of Tunisia is where they have 
come, which is an extraordinary way since their 2014 elections, 
including the coalition government that they have been able to 
hold together for quite some time. What we see now are strains, 
which are part, I think, of the democratic process. The 
important thing to see in that is that the parties themselves, 
the parties that have committed to the coalition, that have 
committed to working within the government, have adhered to the 
democratic contract, if you will. They have adhered to 
constitutional standards. They have played by the rules of the 
game, and as long as they stay within those bounds, these kinds 
of things are what we are going to see there.
    They have very important elections coming up next year at 
the end of 2019. Those will be both parliamentary and 
presidential elections, and that will be a milestone for them. 
It will be the second major round of elections, and it will be 
a good indicator of the consolidation of their democratic 
process there.
    So I think it is not surprising that you see strains and 
shifts at times in the lineups or the coalitions in the way 
they look, but at the end of the day, the important thing to 
see will be whether all the players continue to adhere to the 
rules of the game. I think that is the important context here.
    Senator Risch. Is the upcoming elections causing some of 
the turbulence that is there today? That is not foreign to a 
democratic situation as we all know.
    Mr. Blome. Mr. Chairman, I think that is probably an 
absolutely accurate observation and something almost to be 
expected as political figures prepare for election and 
something that is part of the universal democratic experience 
in a way. But again, I think we will probably continue to see 
things like that happening, but the important part is the 
political leadership of Tunisia has remained committed, 
committed to working through the democratic institutions that 
they have set up since 2011.
    Senator Risch. Thanks so much.
    Mr. Moser, Kazakhstan, because of its size and its natural 
resources and just its location, is a very natural target for 
what the Chinese are doing as they reach out around the world. 
Tell us your thoughts on what counterweight we can be to that 
in Kazakhstan. Other countries have had not very good 
experience with China's efforts in that regard. Although 
seemingly well intended at the outset, they do not work as well 
as people thought they would.
    What are your thoughts as far as China and Kazakhstan?
    Ambassador Moser. Mr. Chairman, thank you very much for 
that question.
    And in my preparation for the confirmation process, this is 
a question that I really have focused on because I think this 
is a challenge for the United States in many places in the 
world.
    Inevitably we want Kazakhstan to have a good partnership 
with China. It shares a very long border with China, and of 
course, China is going to be involved. But I think the one 
thing that we need to keep reminding to our Kazakhstan partners 
is that free and transparent markets will be their best 
guarantee of their own security and, of course, the economic 
relationship with China. In fact, we do not discourage Chinese 
investment in Kazakhstan. On the other hand, we want to make 
sure that American companies also have the same access that 
Chinese companies have, and we want to be able to make sure 
that it is an economic level playing field where we can compete 
fairly because we feel that is the best way to guarantee 
Kazakhstan's future and also to make Kazakhstan closer to 
international economic norms.
    Senator Risch. I appreciate that.
    If you can off the top of your head, can you give us some 
examples of the Chinese investment in Kazakhstan, some of the 
larger investments or incursions they are making there?
    Ambassador Moser. Well, one of the most impressive 
investments is that China is trying to shorten its delivery of 
goods to Western Europe or to Europe by going through 
Kazakhstan via a land route. This land route takes about 15 
days as opposed to a ship transit of about 50 or 60 days. So 
this would be tremendously economically beneficial.
    But what happens now is that there is a city on the edge, 
very close to the Chinese border where goods are loaded from 
one railcar from the Chinese gauge to the Kazakhstani gauge----
    Senator Risch. They have two different gauges.
    Ambassador Moser. Yes, they have different gauges. So then 
those goods are then transferred on.
    Now, that commercial hub is growing in size in terms of the 
number of containers that it handles, and this is probably what 
I would consider a very positive initiative because it is 
beneficial for both sides. But I think that we want to 
encourage the right kind of relationship between Kazakhstan and 
China.
    Senator Risch. I appreciate that.
    Mr. Pommersheim, in 2016, a number of Tajik officials 
participated in several Organization for Security and Co-
operation in Europe workshops. I do not know if you are 
familiar with that participation or not. Obviously, the purpose 
was to develop a national strategy for countering violent 
extremism strategy. But lately that has been criticized as a 
front, if you would, for repressing political dissidents. Do 
you have any thoughts on that?
    Mr. Pommersheim. Thank you very much for that question, 
Senator.
    Yes, indeed, there is a national action plan for countering 
violent extremism in Tajikistan that the government is seeking 
to implement, and the OSCE and the United States as well is 
hoping to partner with the government and is partnering on 
measures that can be taken on CVE to make Tajikistan more 
secure.
    But as you point out in your question, it is very important 
that fundamental freedoms be observed in Tajikistan. We try to 
do that, as we have over more than 20 years, in our bilateral 
dialogues, making the point to our partners in Tajikistan that 
security issues should not be used as a pretext to put 
pressure, for example, on the opposition or the independent 
media or on civil society. Unfortunately, there has been 
pressure in all of those areas over the last several years.
    You mentioned OSCE, Mr. Chairman. Recently there have been 
a few positive developments as well. Earlier this year, as a 
matter of fact, just about a month ago, the Tajik Government 
did have a meeting with members of the opposition in Warsaw at 
the Human Dimension Conference at the OSCE meeting there. So 
that was a small positive.
    Another small positive was that some family members of the 
opposition that previously were not being permitted to leave 
Tajikistan were allowed to leave Tajikistan.
    But I fully agree with the premise of your question, and if 
confirmed, I would take that sentiment with me to Dushanbe and 
continue to make that point in my discussions with the 
government there.
    Senator Risch. Thank you very much.
    Well, thanks to all three of you and, again, a special 
thanks to your family knowing the challenges that these posts 
face. We look forward to moving this along as rapidly as we 
can.
    Senator Kaine is unfortunately still detained in an 
important matter that he needs to deal with. He is going to 
have an opening statement and we will include that opening 
statement in the record.
    [Senator Kaine's prepared statement follows:]


           Prepared Statement Submitted by Senator Tim Kaine

    Thank all of you for being here to testify and for your career of 
service at State, and a special thanks to Mr. Blome, who hosted me in 
Jerusalem in January 2016. Congratulations to you and your families for 
your nominations.
    The countries in which you have been nominated to serve as 
Ambassadors experienced relatively recent political upheavals--
Tajikistan and Kazakhstan with their independence following the 
collapse of the Soviet Union in 1991, Tunisia almost twenty years later 
with the Jasmine Revolution beginning in late 2010.
    All of you have impressive records of service that make clear you 
are familiar with the challenges of working in emerging democracies as 
well as authoritarian states. It is critical that you lead your teams 
in championing U.S. support to strengthen democratic institutions, 
including civil society and a free press. I hope you will use the 
authority you will have as U.S. Ambassadors to diplomatically, but 
firmly, speak out against authoritarianism and repression and in 
support of freedom and inclusivity.
    I remain concerned about the Trump administration's persistent 
attempts to cut foreign assistance, including to the countries in which 
you are nominated to serve, and I will continue to support efforts here 
in Congress to allocate sufficient funds to encourage democratic 
trends, bolster civil society, work with partner nations on security 
and stability, and continue to assist vulnerable populations worldwide. 
This is particularly important to counter the historic influence of 
Russia in Central Asia and growing influence of China globally.


    Senator Risch. Also, there may be additional questions. We 
will keep the record open briefly for questions in that regard.
    So, again, thank you to each of you for your participation. 
Thank you again to your families.
    And with that, we will close this hearing.
    [Whereupon, at 11:06 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
             Donald Armin Blome by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over a 25-year career in the Foreign Service I have worked 
with local civil society, election commissions, governments, and 
implementing partners, such as the International Republican Institute, 
the National Democratic Institute, and the International Foundation for 
Election Systems to promote democratization in countries throughout the 
Middle East. I have met with political opposition and dissidents and 
raised their cases with host governments. U.S. engagement in these 
cases can be vital in protecting and promoting human rights.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Tunisia? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. While Tunisia has made important progress since the 2011 
revolution, its democratic institutions remain fragile. The Government 
faces significant economic and security challenges, and there is 
intense public frustration over unemployment, perceived corruption, and 
the rising cost of living.
    According to polling data, Tunisians report unemployment, perceived 
mismanagement of the economy, and corruption as the top three 
challenges facing their country. They hold their democratically elected 
representatives accountable for improving the economic situation. Many 
Tunisian citizens expected economic improvements as tangible benefits 
of the democratic revolution and have yet to see such personal benefits 
accrue since 2011. Delivering accountable and inclusive governance that 
benefits and engages all Tunisians remains a critical challenge for the 
Government.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Tunisia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will continue to press the Government of 
Tunisia on efforts to drive forward its democratic transition, such as 
the establishment of a Constitutional Court; meet regularly with 
Tunisian civil society organizations to understand their concerns; and 
oversee U.S. assistance to strengthen key democratic institutions. 
Through these actions, we hope to encourage rights-based reforms in the 
Tunisian Government that respect international human rights norms. The 
divide between religiously-conservative and secular Tunisians 
complicates both the Government's and the international community's 
efforts to promote human rights reforms, but Tunisia's constitution 
offers a solid basis from which to advance such reforms. Direct 
diplomatic engagement and U.S. support for civil society and building 
the capacity of government institutions is paying off.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The United States remains committed to supporting Tunisia's 
democratic path. Since Tunisia's 2011 revolution, the United States has 
provided Tunisia with over $1.3 billion of U.S. aid to support 
security, economic, and governance reforms. Of this amount, $154 
million is dedicated to democracy, governance, and human rights 
programming. The value of our assistance activities, however, is not 
just the sheer dollar amount of our programs, but rather their 
measurable and meaningful results. If confirmed, I would endeavor to 
ensure that our international partners also share the burden of 
supporting our Tunisian partners, as we continually evaluate how best 
to apply scarce resources against U.S. priorities.
    Some examples of U.S. support to Tunisian democratic institutions 
include assistance to the Tunisian parliament and independent 
constitutional bodies and also to build the capacity of citizens, civil 
society, and political parties to engage local government institutions 
and to improve government transparency. USAID is implementing a program 
that works with newly-elected municipal officials and local governments 
to develop the democratic mechanisms to engage citizens and improve 
public services. Additional programs target capacity building in 
government institutions, like the parliament and independent government 
bodies, that govern elections, anti-corruption, and efforts to counter 
trafficking in persons, to name a few. Supporting Tunisia's democratic 
consolidation is a priority for the State Department, and I would 
continue to support the Tunisian people to strengthen their democratic 
institutions if confirmed.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Tunisia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Civil society in post-revolutionary Tunisia is active and 
vibrant, and civil society actors have a critical role to play in 
contributing to public debate about how the country can best advance 
its democratic principles. If confirmed, I look forward to meeting with 
human rights, civil society, and other non-governmental organizations 
in the United States and in Tunisia. I would encourage the Government 
of Tunisia to apply fairly and transparently the laws governing NGOs 
and civil society organizations.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Efforts to include marginalized populations into the 
political process are vital to Tunisia's democratic transition. The 
U.S. Embassy in Tunisia regularly meets with multiple parties 
represented in the Tunisian Government and in the opposition, a 
practice I would continue if confirmed as U.S. Ambassador. U.S. 
Government assistance to Tunisian democratic institutions, such as the 
parliament, the political parties, and the elections commission, helps 
create an enabling environment for free, fair, and inclusive elections 
and promotes democratic pluralism. Municipal elections held in May 2018 
ushered in record numbers of women and youth leaders.

    Question 7. Will you and your embassy team actively engage with 
Tunisia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Tunisia?

    Answer. Tunisia enjoys a free, vibrant, active, and independent 
press landscape, and the U.S. Embassy in Tunisia regularly meets with 
independent, local press. If confirmed, I would continue this 
engagement. An active and free press plays a vital role in a democratic 
society, and, as Ambassador, I would take seriously any government 
efforts to control or undermine press freedom and would express my 
concerns to the Government of Tunisia.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Embassy Tunis' public affairs team actively engages with 
media, civil society, and government counterparts on media literacy and 
responsible journalism practices through public and private forums and 
exchange programs. If confirmed, I would continue to support this 
engagement and to counter disinformation and propaganda.

    Question 9. Will you and your embassy teams actively engage with 
Tunisia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Ensuring respect for internationally recognized worker 
rights and high labor standards promotes a level playing field for U.S. 
workers and helps create stronger trading partners for the United 
States. Independent trade unions are one of the fundamental building 
blocks for any democratic society, and Tunisia's strong labor unions 
play an active role in public discourse. Embassy Tunisia staff meets 
regularly with members of independent trade unions, and if confirmed, I 
would continue this practice.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Tunisia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Tunisia? What specifically will you commit to do to help LGBTI 
people in Tunisia?

    Answer. Governments have an obligation to protect, respect, and 
uphold the dignity and fundamental freedoms of all people--including 
LGBTI persons. As the Universal Declaration of Human Rights states, all 
human beings are born free and equal in dignity and in rights. 
Advancing universal human rights is in our national interest, and as 
Secretary Pompeo has said, LGBTI persons deserve the same freedoms, 
protections, and respect as everyone else.
    There are many challenges facing LGBTI people in Tunisia and the 
North Africa region, such as discrimination and violence. Consensual 
same-sex sexual relations are a criminal offense in Tunisia, and 
isolated incidents of harassment at the hands of police against LGBTI 
individuals surface every year. Nonetheless, LGBTI advocacy 
organizations continue to operate and advocate vocally for the rights 
of LGBTI individuals; Tunisia hosted two LGBTI-themed film festivals 
over the past year, and a presidential report released this summer on 
individual rights and liberties recommended the decriminalization of 
homosexuality, sparking a national debate.
    If confirmed, my country team and I would consult closely with 
LGBTI human rights defenders on how best to support them in their 
advocacy. I would not shy away from speaking out publicly and privately 
in support of the rights of all, including LGBTI persons. If confirmed, 
I would continue to urge the Tunisian Government to uphold and respect 
its international human rights obligations and commitments.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Donald Armin Blome by Senator Benjamin L. Cardin

    Question 1. Tunisia was one of the main members of the Arab Spring 
revolt, and is the only member of the revolutions to currently have a 
``free'' rating from Freedom House. However, recently we have seen 
Tunisia start to clumsily slide away from democracy:

   How would you--if confirmed--encourage the Tunisian Government to 
        continue the push towards democracy?

    Answer. While Tunisia has made important progress since the 2011 
revolution, its democratic institutions remain fragile. The Government 
faces significant political, economic, and security challenges, and 
there is intense public frustration over unemployment, perceived 
corruption, and the rising cost of living. Civil society has a critical 
role to play in contributing to public debate about how the country can 
best advance democratic principles. U.S. Embassy Tunis regularly 
consults with Tunisian civil society and takes its concerns seriously.
    U.S. security and non-security assistance plays a critical role in 
Tunisia's democratic transition, enabling Tunisia's security forces to 
provide the context for democracy to flourish and providing critical 
skills to government institutions and non-government organizations to 
advance democratic practices. If confirmed, I would continue to 
encourage the Tunisian Government and civil society to consolidate and 
advance the country's democratic development.

    Question 2. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over a 25-year career in the Foreign Service I have worked 
with local civil society, election commissions, governments, and 
implementing partners, such as the International Republican Institute, 
the National Democratic Institute, and the International Foundation for 
Election Systems to promote democratization in countries throughout the 
Middle East. I have met with political opposition and dissidents and 
raised their cases with host governments. U.S. engagement in these 
cases can be vital in protecting and promoting human rights.

    Question 3. What are the most pressing human rights issues in 
Tunisia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Tunisia? What do 
you hope to accomplish through these actions?

    Answer. There has been modest but steady progress since the 
Tunisian constitution's 2014 adoption with respect to religious 
freedom, freedom of expression, women's rights, efforts to counter 
trafficking in persons, and the criminalization of racism. Additional 
proposals to improve women's equality in inheritance are being actively 
debated in Tunisia.
    The State Department has continuing concerns, which are documented 
in our annual Country Reports on Human Rights Practices, about 
treatment of person who are detained, abuse of antiterrorism and 
emergency laws, the criminalization of libel, and corruption. The State 
Department has active and ongoing dialogues with the Government of 
Tunisia and with members of Tunisian civil society on many human rights 
issues. We hope to encourage reforms by the Tunisian Government 
consistent with international human rights obligations and commitments.

    Question 4. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Tunisia in 
advancing human rights, civil society and democracy in general?

    Answer. The State Department has continuing concerns, which are 
documented in our annual Country Reports on Human Rights Practices, 
about treatment of person who are detained, abuse of antiterrorism and 
emergency laws, the criminalization of libel, and corruption. The State 
Department has active and ongoing dialogues with the Government of 
Tunisia and with members of Tunisian civil society on many human rights 
issues. We hope to encourage reforms by the Tunisian Government 
consistent with international human rights obligations and commitments.

    Question 5. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Tunisia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. The Department remains committed to ensuring that 
perpetrators of gross violations of human rights do not receive U.S. 
training or assistance. The Embassy coordinates closely with the State 
Department's Bureau of Democracy, Human Rights, and Labor in the 
vetting process. I would ensure the Leahy vetting and end use 
monitoring programs for our security assistance remain comprehensive 
and thorough.

    Question 6. Will you and your embassy team actively engage with 
Tunisia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Tunisia?

    Answer. The State Department has an ongoing dialogue with the 
Government of Tunisia and with members of Tunisian civil society on 
human rights issues. Human rights and good governance are central to 
our bilateral engagement with the Government of Tunisia, alongside 
security and economic cooperation. If confirmed, I would make promoting 
human rights, including civil rights, and good governance one of my 
highest priorities and would meet regularly with local human rights 
NGOs.

    Question 7. Will you engage with Tunisia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I would make promoting human rights, 
including civil rights, and good governance one of my highest 
priorities and would meet regularly with local human rights NGOs.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in Tunisia?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence in Tunisia; 
however, these funds are exempt from the conflict of interest laws. I 
am committed to ensuring that my official actions will not give rise to 
a conflict of interest and I will remain vigilant with regard to my 
ethics obligations.

    Question 11. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. The Department of State aims to create a culture of 
leadership; attract new talent; encourage individual growth; value and 
respect unique perspectives; enhance professional development; and 
inspire all its employees. If confirmed, I would support the 
Department's efforts to attract and maintain a diverse and inclusive 
workforce.

    Question 12. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. As a leader, I have sought to ensure that diverse views are 
welcomed and engaged, and, if confirmed, I would communicate this 
expectation clearly.
    Question 13. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Tunisia 
specifically?

    Answer. Corruption remains a huge barrier to economic and 
democratic progress in Tunisia. Even the perception of corruption in 
government undermines the public's faith in their democratic 
institutions and discourages citizen engagement.

    Question 14. What is your assessment of corruption trends in 
Tunisia and efforts to address and reduce it by that government?

    Answer. International Republican Institute polling from 2017 in 
Tunisia shows that 90 percent of Tunisians believe corruption worsened 
since the 2011 revolution and that they remain dissatisfied with their 
government's performance on this important issue.
    Prime Minister Chahed launched a popular and aggressive 
anticorruption campaign that has led to high-profile arrests. The 
Tunisian public continues to view corruption as an important problem 
and combatting corruption as a priority, but vested interests have 
slowed the campaign's progress. Corruption persists, both among 
political and business elites and among lower-level government clerks 
and civil servants.

    Question 15. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Tunisia?

    Answer. The State Department has an ongoing dialogue with the 
Government of Tunisia and with members of Tunisian civil society on 
good governance issues. If confirmed, I would make promoting human 
rights, civil rights, and good governance one of my highest priorities 
and would work closely with Tunisian leaders to encourage progress on 
these issues.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Donald Armin Blome by Senator Tim Kaine

    Question 1. The Tunisian Government in July passed Law 30, which 
replaces the previous Decree 88 governing the regulation of non-
governmental organizations. Civil society groups worry that the new law 
will abridge the freedoms they enjoy under Decree 88, creating 
excessive government oversight and having a chilling effect on freedoms 
of association and expression. They also wonder why the Government 
would impose harsh penalties, including possible jail time, for 
clerical errors in the registration process for NGOs:

   How do you assess the Tunisian Government efforts to further 
        legislate the NGO sector and how will you address the concerns 
        that such actions raise?

    Answer. If confirmed, I would ensure that Embassy Tunis would 
continue to give this issue its close attention, and that we maintain a 
constant dialogue on the issue with our partners in civil society and 
government. A vibrant civil society is essential to promote good 
governance, stability, and prosperity.
    Our understanding is that Law 30 does not replace Decree 88, which 
remains in effect as the law governing the regulation and registration 
of NGOs. Law 30, or the July 27 business registration legislation, 
appears consistent with the inter-governmental Financial Action Task 
Force's recommendations to Tunisia to combat terror finance and money 
laundering. The Government of Tunisia has a legitimate interest in 
improving transparency with respect to for-profit and non-profit 
entities. The additional annual financial reporting requirement this 
law imposes does not appear to be a threat to NGOs, but the proof will 
be in its implementation, and we will monitor this closely in 
consultation with NGO partners.

    Question 2. Many Tunisians are highly educated, but the economy has 
generally created low-skilled and low-paid jobs, fueling unemployment, 
under-employment, and flourishing black market. Efforts since 2011 to 
promote private sector-led growth and create jobs have faced 
challenges, including investor perceptions of political risk, terrorist 
attacks on tourist sites, partisan disputes, and labor unrest. 
Percapita GDP has fallen every year since 2014 and youth unemployment, 
estimated at 38 percent in 2012, remains high. Corruption has 
undermined public faith in state institutions and further entrenched 
regional divisions:

   What more can Tunisia and its international partners, including the 
        U.S., do to create jobs, address economic grievances, and 
        reduce youth marginalization?

    Answer. If confirmed, I would continue to focus U.S. Government 
efforts to spur private sector-led growth and to help the Tunisian 
Government to create the conditions to achieve it. The United States 
works closely with the International Monetary Fund, the Millennium 
Challenge Corporation, and other donors to support Tunisia's economic 
development. The United States has invested more than $1.3 billion 
dollars in Tunisia since 2011 to help Tunisia meet an array of 
challenges. Of this amount, the U.S. Government has invested $520 
million since 2011 in programs to promote economic growth in Tunisia.
    The Embassy has used Economic Support Fund programs to promote 
business growth and economic prosperity through projects that bolster 
small and medium enterprises (SMEs), develop workforce skills, and 
provide technical assistance on key reforms. Specific programs include 
the Jobs, Opportunities, and Business Success Program, which increases 
the competitiveness of Tunisia firms and builds upon a previous 
program, which USAID reports created 25,000 jobs; the $100 million 
Tunisian-American Enterprise Fund, which invests in the full range of 
SMEs, from microbusinesses to high-growth start-ups; entrepreneurial 
training and mentoring projects focused exclusively on small businesses 
in the interior of the country; a franchise development project that 
opened the door to franchising in Tunisia; assistance to chambers of 
commerce across the country that provide services to SMEs, and critical 
technical assistance to the Ministry of Finance for tax administration 
and customs reforms.
    To address youth marginalization and in an effort to counter 
violent extremism, the Department of State is helping to build the 
capacity and networks of civil society organizations to counter 
recruitment to violence within their communities and supporting 
programs focused on countering terrorist ideologies through promotion 
of dialogue and tolerance. For example, the USAID community resilience 
program (Ma3an, or ``together'' in Arabic) helps Tunisian youth and 
other stakeholders in marginalized communities identify drivers of 
instability and empowers those same groups to design and implement 
community level actions to address those problems. The State Department 
also supports the Tunisian Scouts and Girls Organization, which 
promotes a culture of tolerance to prevent radicalization to violence, 
as well as space for dialogue through our ``Caf Talks'' program, which 
provide opportunities for young people to make their voices heard 
through debates and discussions in cafes about violence, radicalism, 
and terrorism.

    Question 3. Tunisia remains a transit point for migrants from the 
Middle East and Africa to Europe, with Tunisians themselves also 
embarking on the perilous journey across the Mediterranean. The 
International Organization for Migration as of October 10 recorded 
1,793 deaths of migrants at sea departing from North Africa in 2018:

   If confirmed, what ongoing efforts will you support and what new 
        approaches will you champion to address the flow of migrants 
        from and through Tunisia?

    Answer. Average Tunisians are increasingly frustrated with rising 
prices, declining purchasing power, and unemployment averaging 15 
percent and as high as 30 percent for college degree holders. 
International Republican Institute polling shows that half of Tunisian 
youth are interested in emigration to Europe, legal or otherwise.
    In FY 2018, the State Department's Bureau of Population, Refugee, 
and Migration Affairs (PRM) contributed a total of $4.8 million to the 
U.N. High Commissioner for Refugees for the North Africa region and 
$57.6 million to the International committee of the Red Cross for 
Africa-wide operations, providing them with the flexibility to use the 
funds where they are needed most in the region. PRM also provided 
nearly $6.5 million to the International Organization for Migration to 
address irregular migration flows through Africa, including across 
North Africa. Our border security project, to which Germany has also 
contributed significantly, will lead to a more secure Tunisian land 
border with Libya, further reducing Tunisia's attractiveness as a 
departure point or transit country for illegal migration.
    To address the root causes of migration, the U.S. Government has 
worked with the Tunisian Government and civil society to improve 
economic conditions and employment opportunities. I would continue to 
support such assistance programming for an open and inclusive Tunisian 
economy that can provide jobs for its citizens.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Hon. William H. Moser by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Human rights depend on an independent, effective judicial 
system, free from corruption. As Ambassador to Moldova, I was a leading 
advocate for judicial system reform, both through persistent public 
advocacy and private engagement with the host government. I supported 
U.S. judicial sector reform programs such as public internet access to 
judicial proceedings and human rights training for police. Even though 
there is much still to be achieved, our Embassy efforts facilitated 
Moldova's accession to a European Union Association Agreement in 2014.

    Question 2. What issues are the most pressing challenges to human 
rights in Kazakhstan? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in Kazakhstan 
and, working in partnership with Kazakhstan, to promote human rights 
around the globe? What do you hope to accomplish through these actions?

    Answer. If confirmed, I pledge to engage in an open and frank 
dialogue with the Government of Kazakhstan on our values and concerns 
about human rights and fundamental freedoms, including freedom of 
religion or belief, and the rule of law. At present we are particularly 
concerned about pressures on religious freedom, media, and civil 
society in Kazakhstan. Suppressing political, religious, or civil 
society voices leads to the kind of repressive environment that 
generates instability and violent extremism. If confirmed as 
Ambassador, I would continue to engage the Government of Kazakhstan on 
its creation of new laws or implementation of current laws that 
restrict freedoms in the country, and seek out every opportunity to 
engage with the Government of Kazakhstan on human rights and 
fundamental freedoms, including civil rights and governance, in order 
to strengthen civil society and solidify Kazakhstan's democratic 
institutions.
    If confirmed, I commit to developing and maintaining regular 
contact with human rights activists, civil society leaders, and other 
representatives of non-governmental organizations in Kazakhstan, as 
well as with U.S.-based NGOs, with the goal to strengthen Kazakhstan's 
democratic development, stability, and prosperity.

    Question 3. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations, and 
other members of civil society in Kazakhstan?

    Answer. If confirmed, I commit to developing and maintaining 
regular contact with human rights activists, civil society leaders, and 
other representatives of non-governmental organizations in Kazakhstan, 
as well as with U.S.-based NGOs, with the goal to strengthen 
Kazakhstan's democratic development, stability, and prosperity.

    Question 4. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? Will you advocate 
for access and inclusivity for women, minorities and youth within 
political parties?

    Answer. If confirmed, I commit to meeting with democratically 
oriented political opposition figures and parties and advocating for 
access and inclusivity for women, members of minority groups, and youth 
within political parties. I further commit to highlighting the 
importance of inclusivity, diversity, and political competition in my 
discussions with the Government of Kazakhstan and in public 
appearances.

    Question 5. Will you and your embassy team actively engage with 
Kazakhstan on freedom of the press and any undermining of freedom of 
expression in the country? Will you commit to meeting regularly with 
independent, local press in Kazakhstan?

    Answer. If confirmed, I pledge to engage actively with the 
Government and people of Kazakhstan on press freedom and to advocate 
strongly against any efforts designed to control or undermine press 
freedoms. I further commit to meet regularly with members of the 
independent, local press in Kazakhstan and to support ongoing efforts 
to increase media outlets' capacity to access new information sources 
and to strengthen professionalism in the sector.

    Question 6. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will actively engage with civil society and 
my government counterparts to counter disinformation and propaganda 
disseminated by foreign states or non-state actors in Kazakhstan. I 
further commit to coordinating assistance programming in Kazakhstan to 
strengthen independent media and to increase access to accurate 
information about the United States, countering the impact of foreign 
state-sponsored disinformation.

    Question 7. Will you and your embassy teams actively engage with 
Kazakhstan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, my Embassy team and I will continue to engage 
actively with Kazakhstan on the rights of labor groups, including 
independent trade unions, to organize. Ensuring respect for 
internationally recognized workers' rights and high labor standards 
promotes a level playing field for U.S. workers and helps create 
stronger trading partners for the United States. Independent trade 
unions are one of the fundamental building blocks for any democratic 
society and are important partners for the State Department in many 
countries. If confirmed, I will continue to support workers' ability to 
form and join independent trade unions of their choice.

    Question 8. Will you commit to using your position, if confirmed, 
to support the human rights and dignity of all people in Kazakhstan, no 
matter their sexual orientation or gender identity?

    Answer. I pledge to defend the human rights and dignity of all 
people in Kazakhstan, no matter their sexual orientation or gender 
identity. If confirmed, I commit to working with civil society and NGOs 
that address LGBTI issues and to have a frank dialogue with the 
Government of Kazakhstan on the obligation of governments to respect 
the human rights of everyone in their countries.

    Question 9. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Kazakhstan?

    Answer. In confirmed, I pledge to support an open and frank 
dialogue with the Government of Kazakhstan on our values and concerns 
about human rights and fundamental freedoms, including freedoms of 
religion or belief and expression. In particular, I would continue to 
engage the Government of Kazakhstan on its creation of new laws or 
implementation of current laws that restrict the space for the exercise 
of religious freedom in Kazakhstan. In addition, I would urge 
Kazakhstan to uphold its international obligations and commitments on 
freedom of religion or belief.

    Question 10. The State Department's Kazakhstan 2017 Human Rights 
Report also that while the Kazakh Government has selectively prosecuted 
officials who committed abuses, ``corruption remained widespread, and 
impunity existed for those in positions of authority as well as those 
connected to government or law enforcement officials.'' What will you 
do to ensure that the United States is working to address corruption in 
Kazakhstan, both in terms the sanctity of contracts and respecting the 
decisions of courts and the rule of law?

    Answer. Corruption and the arbitrary application of law are 
problems in Kazakhstan and hindrances to economic growth. The 
Department of State's Investment Climate Statement clearly outlines 
these obstacles. If confirmed, I would continue our work with the 
Government of Kazakhstan to address these challenges. Importantly, the 
Government of Kazakhstan has asked for our support to do so. As 
Ambassador, I would work to ensure assistance programming continues to 
be used prudently to improve Kazakhstan's investment climate and expand 
opportunities for U.S. business. Current assistance programs, for 
example, are strengthening the analytical capacity of Kazakhstan's 
Anti-Corruption Bureau to combat financial and corruption crimes; 
enabling Kazakhstan's National Bank and private banks to better counter 
money laundering; strengthening citizen initiative groups to fight 
corruption from the grassroots level; and working with Kazakhstan's 
Supreme Court to help foster an independent judiciary.

    Question 11. If confirmed, how will you support an honest 
accounting of corruption and human rights abuses by Kazakh Government 
officials and incorporate this information into policy decisions 
regarding security assistance and other engagement with Kazakhstan?

    Answer. If confirmed, I will support the Embassy's Leahy vetting 
program for security force unit and individual recipients of U.S. 
foreign assistance, and I will ensure that all security and law 
enforcement cooperation activities continue to reinforce the importance 
of human rights and good governance in Kazakhstan. In this regard, I 
further understand the importance of and plan to adhere to all 
legislation and congressional reporting requirements.

    Question 12. How will you work with Kazakh counterparts to boost 
resilience to Russian Government meddling within its democratic 
institutions and civil society, and to counter Kremlin threats in the 
Central Asian region?

    Answer. If confirmed, I will work to advance our strategic 
interests in Kazakhstan, recognizing that Kazakhstan has longstanding 
ties to Russia. I would encourage Kazakhstan to have healthy and 
mutually beneficial relations with its neighbors and with countries 
around the world that strengthen Kazakhstan's sovereignty, 
independence, and territorial integrity. If confirmed, I would work 
with Kazakhstan on its goal to diversify its economy by making its 
investment climate and economy more open to U.S. goods and services; 
strengthen its media through programs designed to increase access to 
alternate sources of information and bolster professionalism in the 
sector; and facilitate greater regional cooperation and consultation in 
Central Asia through platforms like C5+1. I will also ensure that our 
public diplomacy cooperation supports independent media to increase 
access to accurate information about the United States and to counter 
the impact of foreign state-sponsored disinformation.



                               __________

     Responses to Additional Questions for the Record Submitted to 
          Hon. William H. Moser by Senator Benjamin L. Cardin

    Question 1. Lately, President Nursultan Nazarbayev has increased 
economic ties with China, looked beyond Russia for economic and 
military partners and called for more inclusive governance. This is 
quite a shift as Nazarbayev has been president since 1990 and usually 
had very close ties to Russia:

   In your opinion, does Russia or China pose a bigger threat to U.S. 
        interests in Kazakhstan? Why?

    Answer. If confirmed, I will work to advance our strategic 
interests in Kazakhstan, recognizing that Kazakhstan has longstanding 
ties to Russia and burgeoning relations with China. I would encourage 
Kazakhstan to have healthy and mutually beneficial relations with its 
neighbors and with countries around the world that strengthen 
Kazakhstan's sovereignty, independence, and territorial integrity. The 
United States does not view its bilateral relationships with Kazakhstan 
in zero-sum terms, whether vis-a-vis Russia, China, or any other third 
country.

    Question 2. What is the biggest obstacle to the further development 
of Kazakhstan's democracy?

    Answer. Suppressing political, religious, or civil society voices 
stymies the growth of democratic society and prevents inclusive 
governance. If confirmed, I would regularly raise our human rights 
concerns as a part of our bilateral engagement, in particular our 
concerns about pressures on religious freedom, media, and civil 
society. I would continue to urge Kazakhstan to uphold its 
international obligations and commitments on human rights and 
fundamental freedoms.

    Question 3. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. The protection of human rights depends on an independent, 
effective judicial system, free from corruption. As Ambassador to 
Moldova, I was a leading advocate for judicial system reform, both 
through persistent public advocacy and private engagement with the host 
government. I supported U.S. judicial sector reform programs such as 
public internet access to judicial proceedings and human rights 
training for police. Even though further progress is needed, our 
Embassy efforts facilitated Moldova's accession to a European Union 
Association Agreement in 2014.

    Question 4. What are the most pressing human rights issues in 
Kazakhstan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Kazakhstan? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, I pledge to engage in an open and frank 
dialogue with the Government of Kazakhstan on our values and concerns 
about human rights and fundamental freedoms, including freedom of 
religion or belief, and the rule of law. At present we are particularly 
concerned about restrictions on religious freedom, media, and civil 
society in Kazakhstan. Suppressing political, religious, or civil 
society voices leads to the kind of repressive environment that 
generates instability and violent extremism. If confirmed, I would 
continue to engage the Government of Kazakhstan on its creation of new 
laws or implementation of current laws that restrict freedoms in the 
country, and seek out every opportunity to engage with the Government 
of Kazakhstan on fundamental freedoms and good governance in order to 
strengthen civil society, encourage the Government's protection of 
these freedoms, and urge more democratic institution building.

    Question 5. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kazakhstan in 
advancing human rights, civil society and democracy in general?

    Answer. At present we are particularly concerned about restrictions 
on religious freedom, media, and civil society in Kazakhstan. 
Suppressing political, religious, or civil society voices leads to the 
kind of repressive environment that generates instability and violent 
extremism. If confirmed, I would continue to engage the Government of 
Kazakhstan on its creation of new laws or implementation of current 
laws that restrict freedoms in the country, and seek out every 
opportunity to engage with the Government of Kazakhstan on fundamental 
freedoms and good governance in order to strengthen civil society, 
encourage the Government's protection of these freedoms, and urge more 
democratic institution building.
    Corruption and the arbitrary application of law are problems in 
Kazakhstan and hindrances to governance and economic growth. The 
Department of State's Investment Climate Statement clearly outlines 
these obstacles. If confirmed, I would work with the Government of 
Kazakhstan to address these challenges. Importantly, the Government of 
Kazakhstan has asked for our support to do so. As Ambassador, I would 
work to ensure assistance programming continues to be used prudently to 
improve Kazakhstan's investment climate and expand opportunities for 
U.S. business. Current assistance programs, for example, are 
strengthening the analytical capacity of Kazakhstan's Anti-Corruption 
Bureau to combat financial and corruption crimes; enabling Kazakhstan's 
National Bank and private banks to better counter money laundering; 
strengthening citizen initiative groups to fight corruption from the 
grassroots level; and working with Kazakhstan's Supreme Court to help 
foster an independent judiciary.

    Question 6. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kazakhstan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I commit to developing and maintaining 
regular contact with human rights activists, civil society leaders, and 
other representatives of non-governmental organizations in Kazakhstan, 
as well as with U.S.-based NGOs. If confirmed, I will support the 
Embassy's Leahy program for security force unit and individual 
recipients of U.S. foreign assistance. I will further ensure that all 
U.S. security and law enforcement assistance activities will continue 
to reinforce the importance of human rights.

    Question 7. Will you and your embassy team actively engage with 
Kazakhstan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Kazakhstan?

    Answer. If confirmed, I pledge to continue to raise key individual 
cases with the Government of Kazakhstan and urge the protection of 
human rights and fundamental freedoms, including fair trial guarantees 
and the rule of law.

    Question 8. Will you engage with Kazakhstan on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I pledge to engage in an open and frank 
dialogue with the Government of Kazakhstan on our values and concerns 
about human rights and fundamental freedoms, including freedom of 
religion or belief, and the rule of law. At present we are particularly 
concerned about restrictions on religious freedom, media, and civil 
society in Kazakhstan. Suppressing political, religious, or civil 
society voices leads to the kind of repressive environment that 
generates instability and violent extremism. If confirmed, I would 
continue to engage the Government of Kazakhstan on its creation of new 
laws or implementation of current laws that restrict freedoms in the 
country, and seek out every opportunity to engage with the Government 
of Kazakhstan on fundamental freedoms and good governance in order to 
strengthen civil society, encourage the Government's protection of 
these freedoms, and urge more democratic institution building.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Kazakhstan?

    Answer. Neither I nor any members of my family have any financial 
interests in Kazakhstan. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest, and I will remain 
vigilant with regard to my ethics obligations.

    Question 12. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will make a priority of encouraging the 
recruitment and professional development of a diverse staff that 
represents the United States. Working with my staff, I will encourage 
the recruitment of a diverse, qualified group of applicants for each 
job opening, and I will work to expand our mentoring program for junior 
officers to include entry-level specialists and eligible family member 
employees.

    Question 13. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will communicate to Embassy senior staff 
that I will have zero tolerance for discrimination and sexual 
harassment. In addition, ahead of our annual personnel selection 
season, I will communicate my expectation that we invite applications 
from the broadest possible slate of qualified candidates to ensure that 
we foster a diverse and inclusive community. I will ask our supervisors 
to reinforce these principles with their American and Kazakhstani staff 
to ensure we set appropriate expectations.

    Question 14. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Kazakhstan 
specifically?

    Answer. Corruption and the arbitrary application of law are 
problems in Kazakhstan and hindrances to governance and economic 
growth. The Department of State's Investment Climate Statement clearly 
outlines these obstacles. If confirmed, I would work with the 
Government of Kazakhstan to address these challenges. Importantly, the 
Government of Kazakhstan has asked for our support to do so.

    Question 15. What is your assessment of corruption trends in 
Kazakhstan and efforts to address and reduce it by that government?

    Answer. Corruption and the arbitrary application of law are 
problems in Kazakhstan and hindrances to governance and economic 
growth. The Department of State's Investment Climate Statement clearly 
outlines these obstacles. If confirmed, I would work with the 
Government of Kazakhstan to address these challenges. Importantly, the 
Government of Kazakhstan has asked for our support to do so. As 
Ambassador, I would work to ensure assistance programming continues to 
be used prudently to improve Kazakhstan's investment climate and expand 
opportunities for U.S. business.

    Question 16. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Kazakhstan?

    Answer. If confirmed, I would work to ensure assistance programming 
continues to be used prudently to improve Kazakhstan's investment 
climate and expand opportunities for U.S. business. Current assistance 
programs, for example, are strengthening the analytical capacity of 
Kazakhstan's Anti-Corruption Bureau to combat financial and corruption 
crimes; enabling Kazakhstan's National Bank and private banks to better 
counter money laundering; strengthening citizen initiative groups to 
fight corruption from the grassroots level; and working with 
Kazakhstan's Supreme Court to help foster an independent judiciary.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Hon. William H. Moser by Senator Tim Kaine

    Question 1. I am concerned about reports from the State Department, 
United Nations, and credible human rights groups about the lack of 
independence of the judiciary, widespread use of torture, and serious 
violations of the rights of freedom of expression, association, and 
peaceful assembly in Kazakhstan. There are reportedly more than 20 
political prisoners in the country. Human Rights Watch, the Coalition 
of NGOs of Kazakhstan Against Torture, and Parliamentary Assembly of 
the Council of Europe have all spoken out about the case of Iskander 
Yerimbetov, a Kazakhstan businessman who has been detained, tortured, 
and put on trial, all to force his sister to return to the country to 
give false testimony against an opposition politician:

   What do you think the most effective way is for us to make clear to 
        President Nazarbayev that U.S. interests include human rights 
        and that we expect to see these kinds of serious human rights 
        abuses addressed?

    Answer. If confirmed, I pledge to maintain an open and frank 
dialogue with the Government of Kazakhstan on our values and concerns 
about human rights and fundamental freedoms, and this includes raising 
individual cases. Working with my Embassy staff, I would continue to 
urge Kazakhstan to uphold its international obligations and commitments 
on fundamental freedoms, including freedom of expression and freedom of 
religion or belief. I would also ensure we continue to work closely 
with NGOs and diplomatic partners to further our engagement on human 
rights with Kazakhstan.

    Question 2. Kazakhstan has shown interest in opening its economy to 
attract foreign investors including through reforms to state-owned 
companies and diversifying away from resource dependency. Despite the 
promise of this progress, corruption and arbitrary enforcement of laws 
and contracts inhibit foreign investors, including those from the U.S., 
from more robust investment. In acceding to the World Trade 
Organization (WTO) in 2015, Kazakhstan pledged to abide by the values 
of openness, transparency, good governance and respect for the rule of 
law:

   What is your assessment of the investment climate and what measures 
        is Kazakhstan taking or should it take to meet its WTO 
        obligations, including honoring the sanctity of contracts, 
        respecting the decisions of courts and the rule of law?

    Answer. Corruption and the arbitrary application of law are 
problems in Kazakhstan and hindrances to economic growth. The 
Department of State's Investment Climate Statement clearly outlines 
these obstacles. If confirmed, I would continue our work with the 
Government of Kazakhstan to address these challenges. Importantly, the 
Government of Kazakhstan has asked for our support to do so. As 
Ambassador, I would work to ensure assistance programming continues to 
be used prudently to improve Kazakhstan's investment climate and expand 
opportunities for U.S. business. Current assistance programs, for 
example, are strengthening the analytical capacity of Kazakhstan's 
Anti-Corruption Bureau to combat financial and corruption crimes; 
enabling Kazakhstan's National Bank and private banks to better counter 
money laundering; strengthening citizen initiative groups to fight 
corruption from the grassroots level; and working with Kazakhstan's 
Supreme Court to help foster an independent judiciary.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            John Mark Pommersheim by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My experience working on human rights and democracy began 
in 1992 at the U.S. Embassy in Minsk, Belarus, where I served as the 
Embassy's first political and human rights officer. In that capacity, I 
drafted the first human rights report for that country and maintained a 
dialogue with civil society and government officials. While serving as 
Director for the South Caucasus, I helped orchestrate active U.S. 
Government dialogues on human rights and democracy with the countries 
of Armenia, Azerbaijan, and Georgia that involved successful advocacy 
in individual cases and on discrete issues. In China and Russia, I 
worked on issues involving refugees from North Korea and achieved 
successful outcomes. As Deputy Chief of Mission in Kazakhstan, I worked 
with the Government and civil society on issues related to press 
freedom and freedom of religion.

    Question 2. What issues are the most pressing challenges to human 
rights in Tajikistan? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in Tajikistan 
and, working in partnership with Tajikistan, to promote human rights 
around the globe? What do you hope to accomplish through these actions?

    Answer. In Tajikistan, we are particularly concerned about 
pressures on media, civil society, and political opposition groups. We 
believe that suppressing political, religious, or civil society voices 
leads to the kind of repressive environment that generates instability. 
We encourage Tajikistan to protect the religious freedom of all in 
Tajikistan. Our experience tells us that respecting peaceful religious 
beliefs and practices, including the right of all to participate in 
religious communities, is the best way to promote a peaceful and open 
society. If confirmed, I will continue our efforts with Tajikistan's 
Government, armed forces, media, and non-governmental organizations to 
improve respect for human rights and strengthen civil society and 
democratic engagement.

    Question 3. What will you and your embassy team do to address the 
reported instances of torture or ill-treatment in detention carried out 
at the hands of the Tajik Government?

    Answer. If confirmed, I pledge to maintain an open and frank 
dialogue with the Government of Tajikistan on our values and concerns 
about human rights and fundamental freedoms, and this includes raising 
individual cases. Working with embassy staff, I would continue to urge 
Tajikistan to uphold its international obligations and commitments on 
human rights and fundamental freedoms, including its obligations under 
the Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment.

    Question 4. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations, and 
other members of civil society in Tajikistan?

    Answer. Yes. If confirmed, I wholeheartedly commit to ongoing 
dialogue with and support for Tajikistan's civil society organizations 
and human rights defenders. Our consistent message to Tajikistan has 
been that long-term stability and security cannot be achieved without 
democratic and accountable governance, including respect for all 
individuals' human rights and fundamental freedoms, and this is a 
message I would continue to promote in dialogue with the Government of 
Tajikistan.

    Question 5. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? Will you advocate 
for access and inclusivity for women, minorities and youth within 
political parties?

    Answer. Yes. The United States has full and robust dialogues with 
Tajikistan on human rights, including a significant focus on protecting 
the activities of human rights defenders and journalists. We 
consistently raise specific human rights concerns with the Government 
of Tajikistan, and underscore those concerns through official 
statements at the U.N., the OSCE, and other bodies, as well as in our 
annual Human Rights, Religious Freedom, and Trafficking in Persons 
reports. If confirmed, I will continue to use our dialogues, reports, 
and other tools to help Tajikistan make progress in areas of concern.

    Question 6. Will you and your embassy team actively engage with 
Tajikistan on freedom of the press and any undermining of freedom of 
expression in the country? Will you commit to meeting regularly with 
independent, local press in Tajikistan?

    Answer. Yes. The United States supports freedom of expression, 
including for the media, and the ability of journalists to work without 
fear of censorship or reprisal. We have regularly raised our concerns 
regarding the treatment of journalists in Tajikistan, as well as our 
concern with restrictions of internet freedom, in private discussions 
with the Government of Tajikistan and publically. We are particularly 
concerned that news sites and social media websites are periodically 
blocked during periods deemed to be politically sensitive in nature. If 
confirmed, I look forward to expanding our support for Tajikistan's 
independent press through our Embassy's exchanges, trainings, technical 
assistance programs, equipment transfers, and small grants.

    Question 7. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will actively engage with civil society and 
my government counterparts to counter disinformation and malign 
propaganda disseminated by foreign states or non-state actors in 
Tajikistan. I further commit to coordinating assistance programming in 
Tajikistan to strengthen independent media and to increase access to 
accurate information about the United States, countering the impact of 
foreign state sponsored disinformation.

    Question 8. Will you and your embassy teams actively engage with 
Tajikistan on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, my embassy team and I will actively engage 
with Tajikistan on the right of labor groups, including independent 
trade unions, to organize. Ensuring respect for internationally 
recognized workers' rights and high labor standards promotes a level 
playing field for U.S. workers and helps create stronger trading 
partners for the United States. Independent trade unions are one of the 
fundamental building blocks for any democratic society and are 
important partners for the State Department in many countries. If 
confirmed, I will continue to support workers' ability to form and join 
independent trade unions of their choice.

    Question 9. Will you commit to using your position, if confirmed, 
to support the human rights and dignity of all people in Tajikistan, no 
matter their sexual orientation or gender identity?

    Answer. If confirmed, I pledge to defend the human rights and 
dignity of all people in Tajikistan, no matter their sexual orientation 
or gender identity. I commit to working with civil society and NGO's 
that address LGBTI issues and to have a frank dialogue with the 
Government of Tajikistan on the obligation of governments to respect 
the human rights of all.

    Question 10. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression in Tajikistan?

    Answer. Undue restrictions on religious activities run the risk of 
fueling radicalization to violence. When the Government limits the 
participation of women and children in religious services (or, dictates 
who may participate in religious services), bans the wearing of 
religious garb, and prevents members of minority religions from 
practicing their faiths, it is counterproductive. We have expressed 
this concern to the Government of Tajikistan on numerous occasions, and 
the Secretary of State has twice (2016 and 2017) designated Tajikistan 
as a Country of Particular Concern in our annual Religious Freedom 
Report. My objective, if confirmed, will be to work with the Government 
of Tajikistan to prevent the recruitment of its citizens and 
effectively address legitimate concerns of terrorism while protecting 
the human rights and fundamental freedoms of individuals.

    Question 11. In 2016, Tajik President Emomali Rahmon further 
solidified his rule by having himself designated ``Leader of the 
Nation,'' removing term limits and allowing for lifelong immunity 
through constitutional amendments ratified in a referendum. The 
referendum also lowered the minimum age required to run for president, 
which would make Rahmon's son Rustam Emomali eligible to run for 
president in 2020. If confirmed, what will you do to encourage 
pluralistic, transparent, and responsive governance from the Tajik 
Government?

    Answer. Tajikistan has much to gain from providing its citizens 
with genuinely free and fair elections. We emphasize the importance of 
providing space for voices of political opposition in discussions with 
Tajik leaders. If confirmed, I will work to urge the Government to move 
forward with the democratic reforms necessary to ensure political 
pluralism and a vibrant civil society.

    Question 12. If confirmed, how will you support an honest 
accounting of corruption and human rights abuses by Tajik Government 
officials and incorporate this information into policy decisions 
regarding security assistance and other engagement with Tajikistan?

    Answer. The United States has been very frank with the Tajik 
Government that counterterrorism efforts must not involve crackdowns on 
the exercise of human rights and fundamental freedoms, including 
religious freedom. We believe undue constraints on religious expression 
risk fueling radicalization to violence and terrorist recruitment, 
rather than mitigating it.
    Any counterterrorism training that we conduct with Tajikistan's 
security forces includes instruction on the law of armed conflict to 
ensure that the leadership understands the need to respect 
international law. If confirmed, I will support the Embassy's Leahy 
program for security force unit and individual recipients of U.S. 
foreign assistance. I will further ensure that all U.S. security and 
law enforcement assistance activities will continue to reinforce the 
importance of human rights.
    If confirmed, it will be one of my highest priorities to continue 
this dialogue and reinforce these messages with the Tajik Government. 
We also hold the view that corruption is a serious impediment to 
economic development and, if confirmed, I would continue efforts to 
improve the rule of law in the interests of establishing and 
maintaining a fair playing field for all economic actors, including for 
small and medium-sized enterprises and for U.S. investors.

    Question 13. How will you work with Tajik counterparts to boost 
resilience to Russian Government meddling within its institutions and 
civil society, and to counter Kremlin threats in the Central Asian 
region? What types of U.S. assistance do you see as most critical in 
this regard?

    Answer. If confirmed, I will work to advance our strategic 
interests in Tajikistan, recognizing that Tajikistan has longstanding 
economic and security ties to Russia. I would encourage Tajikistan to 
have healthy and mutually beneficial relations with its neighbors and 
with countries around the world that respect Tajikistan's sovereignty, 
independence, and territorial integrity. If confirmed, I would work 
with Tajikistan on its goal to diversify its economy by making its 
investment climate and economy more open to U.S. goods and companies; 
strengthening and bolstering professionalism in its border guard and 
other security forces to increase its ability to partner with the 
United States in counterterrorism and counternarcotics operations; and 
facilitating greater regional cooperation and consultation in Central 
Asia through platforms such as the C5+1.

    Question 14. What will you do to address concerns that Russia's 
recent military aid to the Tajik army (including Russia's possible 
involvement in an August 2018 airstrike along the Tajikistan-
Afghanistan border) is an attempt to influence the region and return 
Russian soldiers to the Tajik-Afghan border?

    Answer. We have been clear with the Governments of all neighboring 
countries that peace in Afghanistan will only come from an Afghan-led, 
Afghan-owned process and that unilateral action only runs the risk of 
prolonging the conflict between the Afghan Government and Taliban 
insurgents. If confirmed, one of my top priorities will be securing 
Tajikistan's continued support for the National Unity Government in 
Kabul and Tajikistan's cooperation in convincing the Russian Government 
to do the same.

    Question 15. Given the disputed area claimed by both Afghanistan 
and Tajikistan, and Tajikistan's possible growing involvement with 
Russia's military activities in Afghanistan, how does Tajikistan fit in 
to the administration's broader South Asia Strategy, particularly with 
respect to Afghanistan?

    Answer. The United States continues to value Tajikistan's 
partnership in implementing the President's South Asia and National 
Security Strategies. We value Tajikistan's contributions to increased 
stability in Afghanistan, especially the role Tajikistan plays in 
securing its shared border against foreign terrorist fighter flows and 
combatting narcotics trafficking. As Afghanistan's northern neighbor 
and regional energy partner, Tajikistan is a crucial contributor to 
that country's economic development and its future as a secure, stable, 
and prosperous state.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          John Mark Pommersheim by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My experience working on human rights and democracy began 
in 1992 at the U.S. Embassy in Minsk, Belarus, where I served as the 
Embassy's first political and human rights officer. In that capacity, I 
drafted the first human rights report for that country and maintained a 
dialogue with civil society and government officials. While serving as 
Director for the South Caucasus, I helped orchestrate active U.S. 
Government dialogues on human rights and democracy with the countries 
of Armenia, Azerbaijan, and Georgia that involved successful advocacy 
in individual cases and on discrete issues. In China and Russia, I 
worked on issues involving refugees from North Korea and achieved 
successful outcomes. As Deputy Chief of Mission in Kazakhstan, I worked 
with the Government and civil society on issues related to freedom of 
expression, including for the press, and freedom of religion.

    Question 2. What are the most pressing human rights issues in 
Tajikistan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Tajikistan? What do 
you hope to accomplish through these actions?

    Answer. In Tajikistan, we are particularly concerned about the 
ever-shrinking space afforded to the media, civil society, and 
political opposition groups. We believe that suppressing political, 
religious, or civil society voices leads to the kind of repressive 
environment that generates instability. We also encourage Tajikistan to 
protect the religious freedom of all in Tajikistan. Our experience 
tells us that respecting the free exercise of religious beliefs and 
practices, including the right of all to practice in community with 
others, is the best way to promote a peaceful and open society. If 
confirmed, I will continue our efforts with Tajikistan's Government, 
armed forces, media, and non-governmental organizations to improve 
respect for human rights, including religious freedom, and strengthen 
civil society and democratic engagement. Embassy Dushanbe has also 
worked diligently with the Government of Tajikistan to engage on issues 
of domestic violence. If confirmed, I will continue to advocate on 
these issues as well.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Tajikistan in 
advancing human rights, civil society and democracy in general?

    Answer. Tajikistan faces significant security concerns that its 
government uses as justification for repression of freedoms of 
association, religion, peaceful, assembly, and other human rights and 
fundamental freedoms. If confirmed, I will continue to engage the 
Government of Tajikistan on new or current laws that restrict human 
rights and fundamental freedoms in the country, including religious 
freedom, and seek out every opportunity to engage with the Government 
on fundamental freedoms and good governance to strengthen civil 
society, encourage the Government's protection of these freedoms, and 
urge more democratic institution building.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Tajikistan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I wholeheartedly commit to ongoing 
dialogue with and support for Tajikistan's civil society organizations 
and human rights defenders. Our consistent message to Tajikistan has 
been that long-term stability and security cannot be achieved without 
democratic and accountable governance, including respect for all 
individuals' human rights and fundamental freedoms, and this is a 
message I would continue to promote in dialogue with the Government of 
Tajikistan. The Department of State continues to closely monitor 
reports of human rights violations and abuses and reports those 
concerns, including allegations of security force abuses, in the annual 
Human Rights Report. If confirmed, I would continue to use this annual 
report and other engagements to press for improvements in human rights 
in Tajikistan.
    We take allegations of gross violations of human rights very 
seriously, and we do not provide assistance to any security force unit 
when we have credible information that the unit has committed a gross 
violation of human rights until and unless the Secretary of State 
determines and reports to Congress that the Government is taking 
effective steps to bring those responsible to justice.

    Question 5. Will you and your embassy team actively engage with 
Tajikistan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Tajikistan?

    Answer. U.S. Embassy Dushanbe has consistently urged the Tajik 
Government in public and in private to treat cases of political 
prisoners in a fair and transparent manner that allows for all 
necessary procedural protections and guarantees, including on the case 
of Mr. Burzurgmehr Yorov. The Embassy has also established the Law 
Reform Working Group to bring key stakeholders together with Parliament 
to revise laws, combat corruption, and promote reform in the judicial 
system and criminal procedure code.
    If confirmed, I pledge to continue to raise key individual cases 
with the Government of Tajikistan and urge the protection of human 
rights and fundamental freedoms and adherence to the rule of law. If 
confirmed, I also look forward to expanding on this and other judicial 
reform opportunities with the Tajik Government.

    Question 6. Will you engage with Tajikistan on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. The United States has full and robust dialogues with 
Tajikistan on human rights and good governance. We consistently raise 
specific human rights concerns with the Government of Tajikistan and 
underscore those concerns through official statements at the U.N., the 
OSCE, and other bodies, as well as in our annual reports on Human 
Rights, International Religious Freedom, and Trafficking in Persons. If 
confirmed, I will continue to use these reports and other tools to 
document human rights problems and encourage Tajikistan to make 
progress in areas of concern.

    Question 7.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Tajikistan?

    Answer. I can confirm that neither my immediate family nor I have 
any financial interests in Tajikistan.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will make a priority of encouraging the 
recruitment and professional development of a diverse staff that 
represents the United States. Working with my staff, I will encourage 
the recruitment of a diverse, qualified group of applicants for each 
job opening, and I will work to expand our mentoring program for junior 
officers to include entry-level specialists and eligible family member 
employees.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will communicate to Embassy senior staff 
that I will have zero tolerance for discrimination and sexual 
harassment. In addition, ahead of our annual personnel selection 
season, I will communicate my expectation that we invite applications 
from the broadest possible slate of qualified candidates to ensure that 
we foster a diverse and inclusive community. I will ask our supervisors 
to reinforce these principles with their American and Tajik staff to 
ensure we set appropriate expectations.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Tajikistan 
specifically?

    Answer. Corruption in government is a serious issue that affects 
many countries worldwide, including Tajikistan. Its impact on the rule 
of law and democratic governance is deleterious to the development of 
Tajikistan as a democracy and also to the economic growth that the 
country seeks.

    Question 13. What is your assessment of corruption trends in 
Tajikistan and efforts to address and reduce it by that government?

    Answer. The Department of State's Investment Climate Statement 
clearly outlines the obstacles still facing Tajikistan in combatting 
corruption. If confirmed, this is an area where I will continue to push 
the Government of Tajikistan to pursue needed reforms and build respect 
for the rule of law.
    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Tajikistan?

    Answer. Tajikistan has much to gain from providing its citizens 
with genuinely free and fair elections and removing the barriers to a 
truly democratic process presented by endemic corruption. We believe 
that corruption is a serious impediment to development and, if 
confirmed, I would continue programming and high-level engagement 
efforts to improve rule of law in the interests of establishing and 
maintaining a fair playing field for all actors, as well as to urge the 
Government to move forward with the democratic reforms necessary to 
ensure political pluralism and a vibrant civil society.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               John Mark Pommersheim by Senator Tim Kaine

    Question 1. Since 2014, the Government of Tajikistan has conducted 
a campaign to discredit and dismantle all viable political opposition 
to President Rahmon and his son. It has banned several legitimate 
opposition parties, such as Group 24, Youth for the Revival of 
Tajikistan, and the Islamic Renaissance Party of Tajikistan. The 
Supreme Court has declared all of these parties to be extremist 
organizations and has outlawed the distribution of newspapers, videos, 
audio recordings, literature, and leaflets connected to any of them. 
Moreover, the Government has arrested and imprisoned hundreds of 
political opposition leaders, sentencing some to life in prison:

   How concerned should we be that Tajikistan is closing off space for 
        legitimate civil society and political expression? And what can 
        the U.S. Government do to help ensure that Tajikistan respects 
        its citizens' freedom of expression and political 
        participation?

    Answer. Tajikistan has much to gain from providing its citizens 
with genuinely free and fair elections. Through our dialogue on these 
issues with the Tajik Government, we emphasize the importance of 
allowing space for voices of political opposition as a way to promote 
the stability and resilience of societies that would otherwise be left 
vulnerable to violent extremist messaging. If confirmed, I pledge to 
continue coordinating with other international organizations and 
missions in holding the Tajik Government accountable through public 
statements and private messaging to emphasize the importance of 
political plurality and a free and open political system.

    Question 2. Since 2014, Tajik authorities have arrested and 
detained at least six human rights lawyers for defending government 
critics. Furthermore, the Government has taken steps to curtail the 
independence of the bar by granting the Justice Ministry the exclusive 
power to authorize law licenses. In the wake of these developments, the 
number of licensed lawyers in the country has fallen by half in the 
space of three years to just 600 in 2017.

   What steps will you take if confirmed to ensure that Tajikistan 
        respects the rule of law and the independence of lawyers in the 
        country?

    Answer. The protection of human rights defenders from charges 
brought because of the exercise of their human rights advocacy in 
Tajikistan is an issue that is deeply concerning, and one that if 
confirmed I intend to raise with officials at the highest levels of the 
Tajik Government. U.S. Embassy Dushanbe has consistently urged the 
Tajik Government in public and in private to treat these cases in a 
fair and transparent manner that provides all required procedural 
protections and guarantees, especially in the case of Mr. Burzurgmehr 
Yorov. The Embassy has also established the Law Reform Working Group to 
bring key stakeholders together with Parliament to revise laws, combat 
corruption, and promote reform in the judicial system, including the 
criminal procedure code. If confirmed, I look forward to expanding on 
this and other judicial reform opportunities with the Tajik Government.

    Question 3. The majority of the heroin smuggled through Central 
Asia to Russia, China, and Europe passes through Tajikistan. As illegal 
substance trafficking and human trafficking are often correlated, it is 
not surprising Tajikistan is rated as Tier Two Watchlist in State's 
annual Trafficking in Persons report, flagged for sex trafficking and 
forced labor of adults and children:

   How will you lead the interagency team at Embassy Dushanbe to 
        address trafficking issues?

    Answer. U.S. Embassy Dushanbe works closely with the Government of 
Tajikistan on trafficking in persons issues. It also partners with 
likeminded countries and international organizations, such as the 
International Labor Organization and the U.N. Office of Drugs and Crime 
(UNODC) to identify opportunities for Tajikistan to improve its record 
in this area and thus remove itself from the Watchlist. For example, 
Embassy Dushanbe has just signed a $350,000 two-year project with UNODC 
to address the legislative and law enforcement-related concerns 
enumerated in the 2018 Trafficking in Persons report. If confirmed, I 
will seek to support and expand these partnerships and this work with 
the Government of Tajikistan.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           John Mark Pommersheim by Senator Edward J. Markey

    Question 1. Since 2014, Tajik authorities have arrested and 
detained at least six human rights lawyers for defending government 
critics. Furthermore, the Government has taken steps to curtail the 
independence of the bar by granting the Justice Ministry the exclusive 
power to authorize law licenses. In the wake of these developments, the 
number of licensed lawyers in the country has fallen from more than 
1,200 in 2015 to just 600 in 2017:

   If confirmed, what steps will you take to ensure that Tajikistan 
        respects the rule of law and the independence of lawyers in the 
        country?

    Answer. The protection of human rights defenders from charges 
brought because of the exercise of their human rights advocacy in 
Tajikistan is an issue that is deeply concerning, and one that if 
confirmed I intend to raise with officials at the highest levels of the 
Tajik Government. U.S. Embassy Dushanbe has consistently urged the 
Tajik Government in public and in private to treat these cases in a 
fair and transparent manner to allow for all required procedural 
protections and guarantees, especially in the case of Mr. Burzurgmehr 
Yorov. The Embassy has also established the Law Reform Working Group to 
bring key stakeholders together with Parliament to revise laws, combat 
corruption, and promote reform in the judicial system including in 
criminal procedure. If confirmed, I look forward to expanding on this 
and other judicial reform opportunities with the Tajik Government.

    Question 2. In May 2015, Tajikistan's U.S.-trained Special Forces 
chief, Gulmurod Khalimov, defected from his position and joined ISIS. 
In a YouTube video announcing his defection, Khalimov cited 
Tajikistan's crackdown on Muslims as justification for abandoning his 
post. Such a statement suggests that restrictive religious freedom laws 
are contributing to religious extremism, rather than curbing it:

   If confirmed, how will you ensure that Tajikistan respects freedom 
        of religion while addressing legitimate security concerns?

    Answer. We have been very frank with the Tajik Government that 
counterterrorism efforts must not involve crackdowns on the exercise of 
human rights and fundamental freedoms, including religious freedom. We 
believe undue constraints on religious expression risk fueling 
radicalization to violence and terrorist recruitment rather than 
mitigating it.
    Any counterterrorism training that we conduct with Tajikistan's 
security forces includes instruction on the law of armed conflict to 
ensure that the leadership understands the need to respect 
international law. If confirmed, I will support the Embassy's Leahy 
program for security force unit and individual recipients of U.S. 
foreign assistance. I will further ensure that all U.S. security and 
law enforcement assistance activities will continue to reinforce the 
importance of human rights. f confirmed, it will be one of my highest 
priorities to continue this dialogue and reinforce these messages with 
the Tajik Government.

    Question 3. Since 2014, the Government of Tajikistan has conducted 
a campaign to discredit and dismantle all viable political opposition. 
It has banned several legitimate opposition parties, such as Group 24, 
Youth for the Revival of Tajikistan, and the Islamic Renaissance Party 
of Tajikistan. The Supreme Court has declared all of these parties to 
be extremist organizations and has outlawed the distribution of 
newspapers, videos, audio recordings, literature, and leaflets 
connected to any of these parties. Moreover, the Government has 
arrested and imprisoned hundreds of political opposition leaders, 
sentencing some to life in prison:

   If confirmed, how will you help ensure that Tajikistan respects 
        freedom of expression and political participation?

    Answer. In Tajikistan, we continue to relay to the Tajik Government 
that we are highly concerned about increasing pressures on media, civil 
society, and political opposition groups. We believe and have messaged 
to President Rahmon and his ministries that suppressing political, 
religious, or civil society voices leads to the kind of repressive 
environment that generates instability. If confirmed, I will continue 
our efforts with Tajikistan's Government, armed forces, media, and non-
governmental organizations to improve respect for human rights and 
strengthen civil society and democratic engagement.



                               __________

                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:02 p.m. in Room 
SD-419, Dirksen Senate office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake [presiding], Gardner, Young, 
Booker, and Kaine.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
committee will come to order.
    Today the committee will consider the nominations of three 
Career Foreign Service officers to serve as Ambassadors to 
Benin, Gambia, and Equatorial Guinea. Having presided over the 
confirmation hearings for the predecessors of each of these--of 
today's nominees, I have enjoyed watching the progress made in 
these countries over the course of the past several years, and 
look forward to see how today's nominees will build on that 
progress.
    Benin underwent a peaceful transition to presidential power 
in 2016. And when the former president stepped down after his 
two terms of office were completed, implementation of the 
second Millennium Challenge Corporation Compact centered on the 
strengthening of electric power. The Electric power sector 
began in June of last year, and the International Monetary Fund 
projects that Benin's GDP will grow to reach 6 percent in 2018 
up from 5.6 percent in 2017. That is something we can all envy, 
is not it?
    The Gambia has made considerable--or let me just say also 
Benin continues to face challenges, however, given the low 
levels of development and high rates of poverty reflecting 
Benin's undiversified economy and the fact that it relies on 
regional exports.
    The Gambia has made considerable progress since we last 
sent an ambassador there with the long-serving president 
ultimately stepping down after losing the election in 2016. 
Since then, governance and human rights have improved inside 
The Gambia, and relations between the countries and the 
international community have improved significantly. These 
actions paved the way for previously-suspended MCC threshold 
programs to be finalized in December of last year and for the 
reinstatement of AGOA benefits for The Gambia, both of which 
will help elevate poverty there.
    Equatorial Guinea is ruled by the longest-serving leader in 
Africa. His administration is charged with long--large-scale 
corruption and nepotism, and the country's economy relies 
heavily on oil and gas exports and has been negatively impacted 
by global oil prices. Oil reserves there are likely to be 
exhausted by 2030, and Equatorial Guinea's economy will be--
need to be diversified, obviously, before then.
    I had a chance to meet with each of today's nominees before 
this hearing, and I look forward to hearing from them today 
about how they will approach the challenges that are before 
them. With that, I would like to recognize the distinguished 
ranking member, Senator Booker, for opening comments.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you. And if the witnesses would 
indulge me for a moment. This may be my last hearing with 
Senator Flake where I get to be the ranking to his chairmanship 
of this really important subcommittee. I have been very 
blessed, and I would like to say this for the record, not just 
by my friendship with Senator Flake, but, on issues of Africa, 
to be able to witness him, to learn from him, to travel with 
him. He is an extraordinary leader when it comes to a continent 
that America has so much interest in, not just our resources or 
our security, but also our eyes towards the beauty and the 
wonder of humanity.
    There is a saying I say all the time, ``Before you tell me 
about your religion, first show it to me in how you treat other 
people.'' Jeff Flake is one of those people who lives his 
values. You know, he is one of those folks that policy-wise we 
may not agree with all the time, but the values that he 
exhibits are not just things I agree with him on, they are 
actually things I look up to.
    And so, I want to thank the chairman for being such a great 
partner in this Congress. You have really enriched my life and 
made me a better senator. And I hope that I can help carry on 
the mantle of keeping the Senate focused on this critically-
important continent.
    Senator Flake. Thank you. You are very kind.
    Senator Booker. Yes. Yes. [Applause.]
    Senator Flake. I would normally say your time is up, but go 
on. [Laughter.]
    Senator Booker. Well, the applause from the witnesses do 
not count because they are just trying to get confirmed. But 
everybody else who applauded, thank you very much. No, joking.
    To the witnesses there, career Foreign Service officers do 
not get thanked enough. In my short time as a Senator, I have 
been blown away by the people I have met out there doing such 
righteous work and representing our country, our interests, and 
again, I think Senator Flake would agree, the interests of 
humanity, in such a brilliant way. And the witnesses we have 
before us are Foreign Service officers who have served in every 
imaginable corner of the world. I mean, just looking at some of 
the nations you all have served, from China, Iraq, Nepal, 
Uganda, to many, many other places, I think that all of us in 
the United States Senate owe you a debt of gratitude and a 
thank you for what you have done.
    You have developed specialties as well that are critically 
important to America's agenda. You are expert managers and 
negotiators. And the fact that you are sitting here again 
putting yourselves forward for very difficult posts is yet 
another tribute to the kind of character that you represent. 
And truly you are patriots that represent the best of who we 
are as a nation, and I am grateful for that.
    You are all going, as you all know, and much better than I 
do, to countries that are real priorities for us in Africa. 
They represent a variety of challenges. Equatorial Guinea, for 
example, exhibits characteristics of--the resource curse that 
all of us know about or have studied. And your work here to 
deal with how the proceeds from these extractive industries 
fail to reach citizens and often perpetuate corruption and 
unaccountable governance is critical. Identifying ways to speak 
out forcefully on issues of human rights, on democracy, 
development, along with supporting American commercial 
interests, will absolutely critical.
    The Gambia has recently undergone a dramatic 
transformation, one that has given me a lot of hope. In early 
2017, we saw a powerful response from the region to promote and 
restore democracy in Gambia after the country's long-term 
authoritarian leader refused to vacate his seat after losing 
elections.
    President Barrow has overseen significant improvements in 
his country's record on governance and human rights, and has 
drawn praise, as I am giving him here, for his efforts to 
undercover abuses committed under the Jammeh regime. The 
transition, however, is still nascent, and we have often seen 
how these things can go south. And so, we have to figure out 
ways to support and keep the changes and reforms on track.
    Benin's government has a record that is generally positive. 
It is a bright spot in this triumvirate that is before us right 
now. Democratic institutions and public policy performance 
remain in need of our support, and, again, we could be critical 
in helping to support local leaders there.
    Corruption is still a key challenge, as we know. While 
President Talon's government has made reforms a key policy 
plank, the government has drawn criticism for what critics view 
as efforts to curtail freedom of expression and centralize 
power. So, there are real challenges in these countries, and 
these nominees, before us today, can help us to seize huge 
opportunities. Your expertise can make a difference for 
generations to come.
    In my travels in the region, I have been struck by the 
resilience, the generosity, the courage, and frankly the beauty 
of the people that I have met in that region. It will be up to 
you to help us to make sure that we capitalize on the promise 
and the hope that is there, and also serve the glorious 
humanity in each of those nations.
    If confirmed, I hope that you will lend the hand of the 
United States to encourage our counterparts in those countries 
to overcome their divisions, build accountable institutions, 
harness economic opportunities, and protect and provide for the 
most vulnerable. I ask this often, but if--please, if you are 
confirmed, to stay in communications with us, with our staffs 
who actually do the hard work in the Senate, and let us know 
the challenges you face, as well as how we might best help you 
in your critical missions. So, I look forward to hearing your 
testimonies today, but it is not going to be a rough hearing 
for any of you, and I am truly grateful for your lifetimes of 
service.
    Senator Flake. Thank you, Senator Booker, and thanks for 
the kind words. And it has been a pure pleasure to work with 
you over the past 2 years. And, you know, I have been in 
Congress, the House, and the Senate for 18 years, all 18 of 
those years serving on the Africa Subcommittee in the House and 
now in the Senate. And being able to chair the committee and to 
be able to meet so many wonderful Foreign Service officers, who 
have provided such generous service their entire lives, for--in 
many cases and dedicated their lives to this work, and it has 
been so wonderful. With, you know, 54 countries in Africa, we 
have a lot of opportunities to see so many go and serve and 
almost exclusively career Foreign Service officers.
    So, I so much appreciate your willingness to serve and your 
families as well, the sacrifices that they make. Often these 
are difficult posts, sometimes dangerous posts, and it is 
appreciated. So, thank you all.
    Patricia Mahoney has been nominated to serve as Ambassador 
to the Republic of Benin. Previous experience includes several 
years at the U.S. Embassy in Uganda as well as postings at 
Foggy Bottom and the National Security Council. Carl Paschall 
has been nominated to serve as Ambassador to The Gambia. His 
Africa-related experience includes serving as Director for the 
Office of Central African Affairs at Foggy Bottom and advising 
the commander of Special Operations Command, Africa on foreign 
policy matters. Susan Stevenson has been nominated to serve as 
Ambassador to Equatorial Guinea, currently the State 
Department's principal deputy secretary for public affairs.
    All three of the nominees today, as I mentioned, are career 
public service officers, and I want to extend the thanks of the 
committee for your work and your willingness to make 
sacrifices. Please introduce any family members that you have, 
and we will go to Ms. Mahoney. Thank you.

STATEMENT OF PATRICIA MAHONEY, OF VIRGINIA, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF BENIN

    Ms. Mahoney. Mr. Chairman, Ranking Member, and 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee to be the next 
ambassador to the Republic of Benin. I am grateful for the 
confidence the President and Secretary of State Pompeo have 
shown me, and I wish to thank the members of the committee for 
the opportunity to testify today.
    I would also like to thank my children: Brian, who is a 
submariner serving with the U.S. Navy; Kevin, a U.S. Army 
veteran now at George Mason University; and Honora, who is in 
Indonesia right now training to be a Peace Corps Volunteer. 
Their patience, support, and good humor have sustained me 
throughout my career.
    Benin stands out as one of our most steadfast partners in a 
region increasingly important to our strategic and economic 
interests, but it is also one of the poorest. Improving the 
prospects and well-being of its people is vital to ensuring 
that Benin continues on a democratic, tolerant, and stable 
path, and the United States has proven a reliable partner in 
helping Benin to do so. If confirmed, I look forward to working 
with you and other members of Congress and staff to advance 
U.S. policy interests, including democracy and human rights, 
economic prosperity, and regional peace and security.
    A multiparty democracy since 1991, Benin has built a 
tradition of peaceful transition of power across six 
presidential elections and is proud of its long tradition of 
religious tolerance. If confirmed, I will work with the 
government of Benin in its efforts to increase the transparency 
and effectiveness of government systems, including a well-
functioning, independent, and fair judicial system.
    I will also work with the government of Benin, which was 
upgraded to Tier 2 in the 2018 Trafficking in Persons Report, 
to confront all forms of human trafficking. The United States 
has a modest, but positive, trade balance with Benin. If 
confirmed, I will work to strengthen mutually-beneficial trade 
and investment ties between our two countries.
    Improving the well-being of a growing population is crucial 
in a country in which nearly 40 percent of the population lives 
below the poverty line. If confirmed, I will do my upmost, 
working with our Embassy, Congress, and U.S. agencies, to 
continue to support Benin in creating the conditions necessary 
to move beyond aid and to achieve self-sustaining economic 
growth.
    With respect to regional security, our shared values are 
reflected in Benin's commitment to stand with its neighbors, to 
confront the horrors of Boko Haram and ISIS West Africa, and in 
its contribution of troops and police to United Nations 
peacekeeping efforts. Benin is also making strides in 
preventing the stread of--excuse me--the spread of violent 
extremism by building community resilience along vulnerable 
border regions.
    Our military and law-enforcement cooperation advance 
Benin's ability to counter the spread of terrorism and 
transnational crime across the Gulf of Guinea and the boarders 
of West Africa. Through continued cooperation, we can help the 
nation and the people of Benin reach their full potential and 
advance our partnership on peace and security goals.
    Mr. Chairman, if confirmed, I will work to deepen our 
bilateral ties, advance U.S. interests, and ensure the safety 
of American citizens in Benin. Thank you for the opportunity, 
Mr. Chairman, to appear today. I would be pleased to take any 
questions.
    [Ms. Mahoney's prepared statement follows:]


                 Prepared Statement of Patricia Mahoney

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am deeply honored to appear before you today as President 
Trump's nominee to be the next Ambassador to the Republic of Benin. I 
am grateful for the confidence the President and Secretary of State 
Pompeo have shown in me, and I wish to thank the members of the 
committee for the opportunity to testify before you. I would also like 
to thank my children: Brian, who is a submariner serving with the U.S. 
Navy; Kevin, a U.S. Army veteran now at George Mason University; and 
Honora, who is in Indonesia training for service as a Peace Corps 
Volunteer. Their patience, support, and good humor have sustained me 
throughout my career.
    It has been my great privilege to serve our country as a Foreign 
Service Officer for the past 28 years. If confirmed, I look forward to 
continuing that service by working with you and other Members of 
Congress and staff to advance U.S. policy and to strengthen our 
bilateral relationship with Benin across a range of shared interests, 
including democracy and human rights; economic prosperity; and 
security. Benin stands out as one of our most steadfast partners in a 
region increasingly important to our strategic and economic interests, 
but it is also one of the poorest. Improving the prospects and well-
being of its people is vital to ensuring that Benin continues on a 
democratic, tolerant, and stable path, and the United States has proven 
a reliable partner in helping Benin do so. If confirmed, I will work 
with the team at Embassy Cotonou to promote a vibrant civil society and 
effective, transparent governance; support a prosperous, open and 
healthy society with closer, mutually beneficial trade linkages with 
the United States; and work in partnership with Benin to strengthen 
regional peace and security. I would like to highlight briefly a few 
priorities in each of these realms.
I. Promoting Democracy and Governance
    A multiparty democracy since 1991, Benin has built a tradition of 
peaceful transition of power across six presidential elections, and it 
is proud of its long tradition of religious tolerance. Benin's 
President, Patrice Talon, recognizes corruption and ineffective public 
administration as among the country's biggest problems. If confirmed, I 
expect to witness Benin's seventh consecutive peaceful, democratic 
presidential election in 2021, in addition to legislative elections to 
be held next spring. I will work with the Government of Benin to 
advance its efforts to increase the transparency and effectiveness of 
government institutions, including a well-functioning, independent, and 
fair judicial system.
    Benin has advanced its efforts to counter human trafficking, 
resulting in an upgrade to Tier 2 in the 2018 Trafficking in Persons 
report. If confirmed, I will work with the Government of Benin to build 
on this progress to confront all forms of human trafficking, in 
particular increasing its efforts to investigate, prosecute, convict, 
adequately sentence traffickers of adults and children, and develop 
effective systems to identify trafficking victims and provide them with 
care.
II. Improving the Well-Being and Economic Prospects of Benin's Growing 
        Population
    Nearly 40 percent of Benin's people live below the poverty line. 
Two-thirds of Benin's population lacks access to electricity. The birth 
rate is the 13th highest in the world; malaria is the leading killer of 
children under five.
    Democracies thrive best when their people thrive. If confirmed, I 
will do my utmost, working with our Embassy, Congress, and U.S. 
agencies to continue to support Benin in creating the conditions 
necessary to move beyond aid and to achieve self-sustaining economic 
growth, allowing the Beninese people to achieve a healthier and more 
prosperous future for themselves and their families.
    This work is already underway. The United States is strengthening 
Benin's electricity sector through a five-year $375 million Millennium 
Challenge Corporation compact. We expect nearly 10 million Beninese to 
benefit from this program.
    The U.S. Agency for International Development is reducing the 
number of Beninese lives lost to malaria and improving the health of 
mothers and children; building the foundations of a healthy, productive 
workforce; and contributing to a 17 percent reduction in mortality of 
children under five since 2014.
    Food security initiatives supported by the U.S. Department of 
Agriculture are feeding schoolchildren and helping to strengthen 
Benin's agriculture industry.
    More than 2,150 Peace Corps Volunteers have served in Benin over 
the past 50 years. While American private investment and bilateral 
trade in Benin are limited, many of the most notable success stories--a 
cashew processing company, a palm liquor producer, and a baobab-based 
export company--have links to former Peace Corps projects.
    The United States has a modest but positive trade balance with 
Benin.
    If confirmed, I will work to strengthen mutually beneficial trade 
and investment ties between our two countries.
III. Strengthening Regional Security
    Benin is a strong partner to the United States for peace and 
security in West Africa and the Sahel. Our shared values are reflected 
in Benin's commitment to stand with its neighbors to confront the 
horrors of Boko Haram and ISIS West Africa, and in its contribution of 
troops and police to United Nations peacekeeping efforts in Mali and 
the Democratic Republic of the Congo. Benin is also making strides in 
preventing the spread of violent extremism by building community 
resilience along vulnerable border regions. Our military and law-
enforcement cooperation advance Benin's ability to counter the spread 
of terrorism and transnational organized crime across the Gulf of 
Guinea and the porous borders of West Africa that threaten American as 
well as Beninese interests.
    Through continued cooperation with Benin, we can help the nation 
and people of Benin reach their full potential and advance our 
partnership on peace and security goals. Mr. Chairman, if confirmed, I 
will continue to work to reinforce our bilateral relationship with 
Benin, advance U.S. interests in Benin, and ensure the safety of 
American citizens.
    Thank you for the opportunity, Mr. Chairman, to appear before you 
today. I would be pleased to take any questions.


    Senator Flake. Thank you. Mr. Paschall?

STATEMENT OF RICHARD CARLTON PASCHALL, III, OF NORTH CAROLINA, 
    A CAREER MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF 
    MINISTER-COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE REPUBLIC 
                         OF THE GAMBIA

    Mr. Paschall. Mr. Chairman, Ranking Member, other 
distinguished members of the committee, I am honored to appear 
before you today, and I am deeply grateful for the trust and 
confidence that President Trump and Secretary of State Pompeo 
have placed in me as the President's nominee to be the next 
ambassador to the Republic of The Gambia. If confirmed, I look 
forward to working with you, other members of Congress, and 
your staffs to advance our Nation's national security and 
foreign policy interests.
    I have had the privilege to serve our Nation for over 27 
years as a career Foreign Service officer around the world and 
here in our Nation's capital. Such a career in service, 
constantly on the move, furthering our Nation's national 
security objectives would have been much, much more difficult 
without the love and support of my family. My wife and best 
friend, Jane Ellen, is a Foreign Service officer with USAID and 
a retired U.S. Army colonel with more than 24 years of service 
in uniform, including multiple combat zone deployments. I am 
the proud father of two outstanding young men. I cannot 
overstate the enormity of their sacrifices over the course of 
my career, far too many months, years, birthdays, and holidays 
spent apart. C.J. and William, thank you. My sister, Cathy 
McCluskey, and brother, Stephan Paschall, and his son, Walker, 
made the trip from North Carolina with my parents, Richard 
Paschall, Jr. and Patricia Norris Paschall.
    Senator Booker. Could all your family members identify 
themselves?
    Mr. Paschall. Sure, absolutely.
    Senator Booker. The two guys behind you barely even smiled 
for crying out loud. [Laughter.]
    Senator Booker. I mean, the dude was just complimenting you 
on the Senate record. [Laughter.]
    Senator Flake. There you go.
    Senator Booker. Can't even smile for us.
    Mr. Paschall. Senator, I am sure they are going to point 
out that transcript with great pride. [Laughter.]
    Mr. Paschall. It makes it all worth it. They are right 
there.
    Senator Booker. And there were other family members you 
mentioned? Are they----
    Senator Flake. They are there.
    Mr. Paschall. Sister, nephew, Walker, mother, Patricia 
Paschall, father, Richard Paschall, and my younger brother, 
Stephen. I have not gotten to him yet.
    Senator Flake. The young one did smile, for the record. He 
did smile, but anyway.
    Mr. Paschall. Mom and Dad, thank you for teaching me about 
unconditional love, the need for compassion and compromise, the 
importance of education and service, and the value of hard 
work.
    This is a particularly momentous time in The Gambia's 
history, one that presents an opportunity to expand further and 
strengthen the growing community of African democracies. The 
Gambian people voted out the autocratic former president, 
though the results were only ensured by the willingness of the 
democracies and the economic community of West African states 
to intervene when the defeated President rejected the electoral 
results. Today, The Gambia, with the support of the 
international community, is working to create a truly 
democratic state operating under the rule of law with respect 
for human rights and investing in its greatest resource, its 
people.
    President Adama Barrow has ushered in a new era of openness 
and transparency and demonstrated dedication to the 
democratization of his country. In one of his early acts, 
President Barrow released all political prisoners. The Gambia 
has begun a process to account for the abuses of the past, 
launching a Truth, Reconciliation and Reparations Commission. A 
commission of inquiry is exploring the financial crimes 
committed under the previous president's rule. The National 
Assembly passed legislation to create a new National Human 
Rights Commission. The judiciary now operates largely 
independently, and arbitrary arrests and detentions have been, 
for the most part, though not completely, eliminated.
    Efforts are under way to reform the framework that 
underpins the business environment to improve the business 
climate. These steps are reflections of the will of the people 
of The Gambia, and they underscore an important point. The 
Gambian people admire America and American values, such as 
freedom, democracy, rule of law, respect for human rights, 
promotion of education, and entrepreneurialism.
    While the trajectory of these objectives is a significant, 
positive departure from previous troubling trends, The Gambia 
is really just at the beginning of what will be a long road to 
improve conditions in the country. The government faces 
significant challenges in developing and implementing reforms. 
And the citizenry, enthusiastic for change after 2 decades of 
declining governance and economic performance, are desperate 
for results.
    In this environment, the United States must speak 
forcefully and consistently in support of positive changes, 
provide targeted expertise and assistance to develop capacity 
in a range of areas, and work closely with like-minded 
countries interested in helping The Gambia to fulfill its 
promise. International donors must share this burden, be nimble 
to respond to emerging needs, flexible given the significant 
capacity limitations in the country, and well coordinated to 
ensure no duplication of or gaps in our collective efforts.
    If confirmed, I pledge to persistently pursue the safety 
and security of our embassy team and of private American 
citizens, and to work with the government and entrepreneurs of 
The Gambia to expand opportunities for U.S. businesses and for 
Gambian businesses to take advantage of their reinstated 
eligibility under the African Growth and Opportunity Act.
    Among the great Americans making a difference every day to 
the people of The Gambia are Peace Corps volunteers,who touch 
lives in ways that most of us can only dream of at the 
individual level. If confirmed, I will seek every opportunity 
to support the work of our Peace Corps volunteers.
    It is important the United States and other partners work 
to support the professionalization of The Gambian security 
services to help better ensure that respect for fundamental 
human rights is the norm. Security service members who 
honorably wear the uniform and serve the people will bolster 
democracy and rule of law, be a force for stability in the 
region and beyond, and help ensure that the country never again 
descends to a state of oppression. If confirmed, it would a 
privilege to lead U.S. efforts to help the government and 
people of The Gambia fulfill their ambitious agenda for peace 
and prosperity.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today. I would be honored to respond to your 
questions.
    [Mr. Paschall's prepared statement follows:]


          Prepared Statement of Richard Carlton Paschall, III

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to appear before you today as President Trump's 
nominee to be the next Ambassador to the Republic of The Gambia. I am 
deeply grateful for the trust and confidence that the President and 
Secretary of State Pompeo have placed in me as their nominee to lead 
our nation's mission in The Gambia. If confirmed, I look forward to 
working with you and other members of Congress and staff to advance our 
Nation's national security and foreign policy interests.
    Mr. Chairman, I have had the privilege to represent and serve our 
nation in the Middle East, South Asia, Africa, the Caribbean, and 
Europe in addition to several assignments here in our Nation's capital. 
Without the love and support of my family, such a career in service 
constantly on the move furthering our nation's national security and 
foreign policy objectives would have been much, much more difficult. I 
am the proud husband of a veteran, and she is with me today. My wife 
and best friend, Jane Ellen, is now a Foreign Service Officer with the 
United States Agency for International Development having retired from 
the U.S. Army as a Colonel. I'm also the proud father of two 
outstanding young men who are here today. CJ is an internet 
entrepreneur, and William is a Computer Science major in college. I owe 
a debt that can never be repaid to my parents who I am happy to have 
with me here today, Richard Paschall Jr. and Patricia Norris Paschall. 
They taught me about unconditional love, compassion, the importance of 
education, the value of hard work, and the importance of service. And I 
am so very grateful to my sister Cathy McCluskey and brother Stephen 
Paschall, and his son Walker, who made the trip from North Carolina 
with my parents.
    This is a particularly momentous time in the Gambia's history--one 
that presents an opportunity to expand further and strengthen the 
growing community of African democracies. Free and fair elections in 
December 2016--the results of which were ensured by the will of the 
democracies in the Economic Community of West African States to 
intervene when the defeated president rejected the electoral results--
ended 22 years of authoritarian rule. The former president raided the 
treasury after pursuing policies for years that bankrupted the country 
and put it heavily in debt, and made it an international pariah due to 
his disdain and disrespect for the rights and the will of the Gambian 
people. Today, The Gambia, with the support of the international 
community including the United States, is working to create a truly 
democratic state operating under the rule of law, with respect for 
human rights, and investing in its greatest resource--its people.
    President Adama Barrow has ushered in a new era of openness and 
transparency, and expressed dedication to the democratization of his 
country. His administration has begun a process to account for the 
abuses of the past by establishing a Truth, Reconciliation, and 
Reparations Commission which was launched just last month. A Commission 
of Inquiry has held hearings for just over a year to explore the 
financial crimes committed under the previous president's rule. The 
National Assembly passed legislation to create a new National Human 
Rights Commission. The judiciary now operates largely independently, 
and arbitrary arrests and detentions have been for the most part, 
though not completely, eliminated. Efforts are underway to reform the 
framework that underpins the business environment and improve the 
business climate. In one of his early acts, President Barrow released 
all political prisoners soon after taking office. This move underscores 
an important point--that the Gambian people admire America and American 
values such as freedom, democracy, rule of law, respect for human 
rights, and promotion of education.
    While the trajectory of these objectives is a remarkable, 
significant positive departure from previous troubling trends, The 
Gambia is really just at the beginning of what will be a long road to 
broad improvement of conditions in the country. The Government faces 
significant challenges in terms of capacity to develop and implement 
reform initiatives that go well above and beyond the fiscal resources 
to do so. And the citizenry are enthusiastic for change after two 
decades of declining governance and economic performance, and desperate 
to see results. In this environment, it is critical that the United 
States speak forcefully and consistently in support of the positive 
changes, provide targeted expertise and assistance to the Government 
and civil society to develop capacity in a wide range of areas, and 
work closely with like-minded countries interested in helping The 
Gambia to fulfill its promise. It will be important that international 
donors share this burden appropriately, be nimble to respond to 
emerging needs, flexible given the significant capacity limitations 
extant in the country, and well-coordinated to ensure no duplication of 
effort, or gaps through which the potential for success might fall. If 
confirmed, it will be a privilege to lead U.S. efforts, with our 
partners, to continue to build on the positive trajectory since The 
Gambia's return to democratic rule in 2017.
    I look forward to working hard, if confirmed, to do what we can to 
help the Government and people of The Gambia fulfill their ambitious 
agenda for peace and prosperity, and I pledge to persistently pursue 
the safety and security of our Embassy team and of private American 
citizens, and to advance U.S. interests in The Gambia. Among the great 
Americans making a difference every day in the lives of the people of 
The Gambia are Peace Corps Volunteers. In my experience, one of the 
most effective programs of the U.S. Government is the Peace Corps, 
whose volunteers touch lives in ways most of us can only dream of, at 
the individual level. I will look for ways to underscore the difference 
our nation's Peace Corps Volunteers make each and every day in The 
Gambia. Working with the Government and entrepreneurs of The Gambia, I 
will seek to expand opportunities for U.S. business to become active in 
The Gambia, and for Gambian businesses to take advantage of the 
reinstated eligibility under the African Growth and Opportunity Act. 
And I will work to support the professionalization of the Gambian 
security services to help better ensure that respect for fundamental 
human rights is the norm and not the exception. This is particularly 
important in The Gambia, where positive reform of the security services 
will further bolster democracy and rule of law, serve as a force for 
stability in the region and beyond, and help to ensure that the country 
never again descends to a state of repression.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I would be honored to respond to any questions.


    Senator Flake. Thank you. Ms. Stevenson?

STATEMENT OF SUSAN N. STEVENSON, OF WASHINGTON, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
     STATES OF AMERICA TO THE REPUBLIC OF EQUATORIAL GUINEA

    Ms. Stevenson. Thank you very much, Senator Flake, Senator 
Booker, and Senator Kaine.
    It is a great honor to be before you as the nominee to be 
the next U.S. Ambassador to the Republic of Equatorial Guinea. 
I am grateful for the confidence that the President and the 
Secretary of State have placed in me with this nomination. And 
if confirmed, I will do my best to uphold this trust and 
promote U.S. national interests.
    I am very pleased that my son, Hugo, could be with me 
today. His sisters, Hadley and Willa, are not in the State and 
could not join us. But like his two sisters, Hugo was born 
overseas and spent over half his life in Asia. This a career 
that involves and impacts the entire family.
    Over the past 26 years, I have been privileged to represent 
the United States in Thailand, in Mexico, and in China, as well 
as through short-term stints in the Middle East and in Africa. 
I have seen firsthand the impact the United States can have on 
people around the world. I have seen the importance of the rule 
of law, good governance, and transparency.
    While serving as consul general in Northern Thailand, I am 
proud to have led U.S. efforts to promote the creative economy 
to strengthen local industry and to expand the market for U.S. 
products. And while assisting the sizable refugee communities 
in Northern Thailand, I saw firsthand how U.S. leadership 
shifted the government of Myanmar to open to the world. In 
China, I was part of the interagency dialogue between our two 
countries to tackle challenges and emphasize areas of common 
interest. The experience showed me that despite disagreements, 
diplomacy can further our national interests without 
sacrificing our values.
    Senators, if confirmed, I look forward to working with 
you--unfortunately, not with you Senator Flake, but we are 
honored to be here during what might be your last hearing--and 
the honorable members of the committee to advance U.S. 
interests in Equatorial Guinea. Our policy priorities there are 
to strengthen our commercial ties, promote democracy, improve 
respect for human rights and civil liberties, and increase the 
economic health and educational opportunities for all of its 
citizens. As I have seen through my work in China, and on 
Myanmar, and North Korea, countries are more stable and 
prosperous when they enfranchise their people.
    Equatorial Guinea, with a population of about 1 million, is 
ostensibly a multiparty, constitutional republic, but as you 
have said, there has been only one president since 1979. The 
ruling party controls all but one seat of the Chamber of 
Deputies and all but one seat in the Senate. Opposition 
political parties fake--face legal restrictions, and opposition 
leaders have faced torture, harassment, arrest, and worse.
    Equatorial Guinea has been the third largest producer of 
oil in Sub-Sahara Africa and enjoys one of the highest 
percapita income rates in the continent. But despite this, much 
of the population lives below poverty level, and official 
corruption remains rampant. If confirmed, I will encourage the 
country's leadership to respect human rights and the rule of 
law, as has my predecessor. I will urge government leaders to 
enable multiparty democracy and a strong civil society. And I 
will stress that promoting transparency and ending corruption 
are key to Equatorial Guinea's long-term growth and stability 
and critical to our commercial ties.
    The United States is the largest trading partner of the 
country. American oil and gas companies have invested more than 
$14 billion since the 1990s. The United States embassy has 
played a critical role in facilitating trade and promoting U.S. 
investors in the country. American oil companies are Equatorial 
Guinea's largest investors, and they have lead hydrocarbon 
exploration and extraction.
    Equatorial Guinea imported nearly $112 million worth of 
U.S. goods in 2017. And if confirmed, I will continue to work 
to protect the commercial interests of U.S. companies invested 
in Equatorial Guinea and improve the investment climate for 
other U.S. businesses as will be more important with the 
decline of hydrocarbon reserves.
    Senator Flake, Senator Booker, and Senator Kaine, while our 
bilateral dialogue and engagement respects Equatorial Guinea's 
sovereignty and culture, we must be frank with our concerns. If 
confirmed, I will promote the political, economic, and social 
development of the country beyond its first 50 years of 
independence, which was celebrated just last month. And if 
confirmed, no goal will be more important to me than protecting 
the lives, interest, and welfare of American citizens living in 
the country and traveling to Equatorial Guinea. I promise to 
work closely with you and the members of the committee in this 
endeavor.
    I thank you for opportunity to testify today, and we look 
forward to taking your questions.
    [Ms. Stevenson's prepared statement follows:]


                Prepared Statement of Susan N. Stevenson

    Thank you very much Chairman Flake, Ranking Member Booker, and 
members of the committee for the opportunity to testify before you 
today. It is a great honor to appear before you as the nominee to be 
the next United States Ambassador to the Republic of Equatorial Guinea, 
a country that celebrated 50 years of independence from Spain last 
month. I am grateful for the confidence that President Trump and 
Secretary of State Pompeo have placed in me with this nomination. If 
confirmed by the Senate, I will do my best to uphold this trust and 
advance U.S. national interests.
    Over the past 26 years, I have been privileged to represent the 
United States in Thailand, China, and Mexico, as well as short-term 
stints in the Middle East and Africa. I have seen first-hand the impact 
the United States can have on people worldwide. There have been common 
challenges in the rule of law, good governance, and transparency, as 
well as opportunities through entrepreneurship and public policy. While 
serving as Consul General in Chiang Mai, Thailand, I am proud to have 
led the U.S. effort to promote the creative economy, to strengthen 
local industry and to expand the market for U.S. products. While 
assisting the sizeable refugee communities in northern Thailand, I saw 
first-hand how U.S. leadership shifted the Government of Myanmar to 
open to the world. In China, I was part of the interagency dialogue 
between our two governments to tackle challenges and emphasize areas of 
common interest. The experience showed me that, despite disagreements 
with certain nations, diplomacy can further our national interests 
without sacrificing our values.
    Mr. Chairman, Ranking Member Booker, if confirmed, I look forward 
to working with you and the honorable members of this committee to 
advance U.S. interests in Equatorial Guinea. U.S. policy priorities in 
Equatorial Guinea are to strengthen our commercial ties, promote 
democracy, improve respect for human rights and civil liberties, and to 
increase economic, health, and educational opportunities for all 
citizens. As I have seen through my work in China and on Myanmar and 
North Korea, countries are more stable and prosperous when they 
enfranchise their people.
    Equatorial Guinea, with a population of about one million people, 
is strategically located on the Gulf of Guinea. Although the country is 
a de jure multiparty, constitutional republic, there has been only one 
president since 1979. The ruling party controls all but one seat in the 
Chamber of Deputies and one seat in the Senate. Opposition political 
parties face legal restrictions, and opposition leaders have faced 
torture, harassment, intimidation, arrest, and even murder.
    Equatorial Guinea is the fourth largest producer of oil in sub-
Saharan Africa, and has one of the highest per-capita income rates in 
Africa. Despite this, much of its population lives below the poverty 
level; and official corruption remains rampant. If confirmed, I will 
encourage the country's leadership to respect human rights and the rule 
of law. I will urge government leaders to enable true multi-party 
democracy and facilitate the growth of a strong civil society. I will 
stress that promoting transparency and ending corrupt practices are key 
to Equatorial Guinea's long-term growth and stability and critical to 
strengthen our commercial ties.
    The United States has a robust economic relationship with 
Equatorial Guinea and remains its largest trading partner. U.S. oil and 
gas companies have invested more than $14 billion in Equatorial Guinea 
since the 1990s. Senators, this amount represents a substantial 
investment. The U.S. Embassy plays a critical trade facilitation and 
promotion role for U.S. investors in Equatorial Guinea. U.S. oil 
companies are Equatorial Guinea's largest investors, and they have the 
lead role in oil and gas exploration and extraction. Equatorial Guinea 
imported nearly $112 million worth of U.S. goods in 2017. If confirmed, 
I will continue to work to protect the commercial interests of U.S. oil 
companies invested in Equatorial Guinea and improve the investment 
climate for other U.S. businesses.
    Mr. Chairman, Ranking Member Booker, while our bilateral dialogue 
and engagement respects Equatorial Guinea's sovereignty and culture, we 
also must be frank in discussing our concerns. If confirmed, I will 
promote the political, economic, and social development of Equatorial 
Guinea as the country looks beyond its first 50 years of independence.
    And, if confirmed, no goal will be more important to me than 
protecting the lives, interests, and welfare of American citizens 
living and traveling in Equatorial Guinea. I promise to work closely 
with you and the members of this committee in this endeavor.
    I thank you for the opportunity to appear before you today. I would 
be pleased to answer any questions you may have.


    Senator Flake. Thank you. Thank you all. Ms. Mahoney, Benin 
is obviously, buffeted by anything that happens in Nigeria next 
door, heavily reliant on cross-border trade. The political 
situation in Nigeria often affects Benin. With elections coming 
up in Nigeria soon, what do we need to be concerned about in 
the neighborhood?
    Ms. Mahoney. Thank you for the question, Senator. As you 
said, Benin is highly dependent upon regional trade, especially 
from its larger neighbor, Nigeria. That is perhaps a--not 
necessarily a problem. It also presents an opportunity because 
it offers a very, very large market for some of the products 
that Benin does develop, especially if they are able to provide 
some value added to those products. So, I think that as the 
elections approach in Nigeria, it is something that we will be 
watching very, very closely because any kinds of--any kinds of 
elements of trouble that may pass through Nigeria will also 
definitely affect Benin. And we want to be sure that they are 
in a position to respond to that--to that possibility.
    Senator Flake. What, if anything, can we do here to push 
Benin to take better advantage of AGOA, the opportunities that 
exist there? What will you be pushing for there as Ambassador 
if you are confirmed?
    Ms. Mahoney. So, right now, there--companies in Benin have 
taken very limited advantage of the AGOA benefits. And if 
confirmed, I would like to encourage companies in Benin to take 
greater advantage of the benefits that AGOA can provide. We 
have some technical assistance that is available to interested 
companies that would sharpen their ability and improve their 
ability to compete in those markets and to take advantage of 
those benefits. We also have assistance available to help the 
government prepare a strategy to take advantage of AGOA 
benefits as well.
    And so, if confirmed, I would build on the efforts that our 
embassy has already undertaken to improve the ability of the 
government of Benin to take advantage of these AGOA benefits 
and to really kind of benefit from the increased prosperity 
that that can bring.
    Senator Flake. Well, thank you. And, Mr. Paschall, you said 
in my office that decades of mismanagement in The Gambia cannot 
be turned around on a dime. What has President Barrow done 
right, and what has he done wrong, and where does he need to 
move to make sure that there is improvement and not sliding the 
other way?
    Mr. Paschall. Senator, thanks. That is a great opportunity 
to underscore the importance of the Truth and Reconciliation 
Reparations Commission. Accounting for the--for the abuses of 
the past will be important to shine a bright light in some dark 
corners. It will be very important for the people of The Gambia 
to be able to come back together and to walk down that long 
road together from a wide range of issues, including the 
creation of the National Human Rights Commission, the 
Commission that created the financial crimes. All of those 
efforts are positive.
    There are--I am not sure that I would say that there are 
things that have been done wrong, per se, at this point in 
time. I think a lot of the--the challenge that I have heard 
briefed to me over the past few months is one of limited 
capacity. There seems to have been a fairly dramatic 
underinvestment in the capacity of government ministries and 
agencies to provide services, deliver services to the people, 
and that is going to be a long road for the country.
    They are saddled with tremendous debt that they inherited 
from the previous administration, and that has made it very, 
very difficult and constrained some of their freedom of 
movement on the economic front. The right words are being said. 
The right plans are being made. The right strategies are being 
offered. And now the real challenge, quite frankly, Senator, is 
implementing those plans and strategies to make forward 
progress.
    Senator Flake. Thank you. Ms. Stevenson, we talked about it 
in my office and you mentioned here again that their 
hydrocarbon reserves are going to be run out--run out in about 
2030. What are they doing? Is there public discussion in the 
briefings you have received so far about how to bridge that 
gap? Once they come to it, are they making the efforts they 
need to to prepare for that eventuality? At what--and what 
percentage is that of their overall revenue?
    Ms. Stevenson. Hydrocarbon industry dominates the economy 
of Equatorial Guinea. They present a very schizophrenic 
profile. Without the hydrocarbon industry, the GDP would be 
dramatically lower. I would say, and obviously if confirmed I 
will know more, but what I have seen and heard in the briefings 
I have received is that the government has not taken adequate 
attention to the fact that these reserves are finite and that 
they do not have a diversified economy.
    The GDP has been shrinking for the past 3 years, which 
certainly has got their attention. The bureaucratic red tape to 
establish businesses and to do business in Equatorial Guinea 
has caused multinationals to leave starting in December of 
2015, which certainly should also catch the attention of the 
Equatoguinean government.
    You know, I certainly do not have a panacea, but we would 
be very willing to work with the government on public policy 
management and on diversification ideas to develop, for 
example, tourism. They have got lush resources on the mainland. 
Their timber industry could be managed more successfully, and 
to really cramp down on corruption, which is affecting every 
level of the government and every aspect of society. So, if 
confirmed, I would like to take advantage of what really is a 
window now to catch the seriousness of the economic challenge 
that faces the country.
    Senator Flake. Speaking of that, you mentioned logging and 
forestry there. What is going on now in terms of our efforts to 
help them prevent illegal logging and the depletion of that 
resource?
    Ms. Stevenson. We are certainly working with them on 
capacity building, but there is corruption in that area and 
abuse in that area as well. We are somewhat limited. We cannot 
provide foreign assistance to the government of Equatorial 
Guinea. They are both too rich a country in terms of GDP per 
capita, but also we are constrained--so foreign assistance is 
limited. But we are also constrained by their Trafficking in 
Persons ranking, which is Tier 3.
    Senator Flake. Thank you.
    Senator Booker.
    Senator Booker. I am going to defer to Senator Kaine.
    Senator Kaine. Thank you to the Chairman and Senator Booker 
for letting me go first, and congratulations to each of you. I 
want to echo the comments that Senator Booker made about our 
chairman. Jeff Flake is a really good friend. We are really 
going to miss him.
    I have people who ask me what I like about this guy, and I 
say, well, he is a decent, valuesfocused person. But in terms 
of as a legislator, even though we are in different parties and 
do not always see eye to eye on policy, I say about this guy 
that if you can--if you convince him on the merits, he will 
stick with you regardless of what any poll or leader says. And 
what more can you ask of a colleague is the opportunity to 
convince him on the merits and have him stick with you. So, I 
know we will have more opportunities to talk, but, Senator 
Flake,we will really miss you.
    Let me just put a concern on the record. Sometimes we have 
these hearings, and something has happened at the State 
Department that is not really related to you all, but this is 
our opportunity just to express our concerns. So, I will do 
that, and I have questions for each of you.
    There was a recent decision to remove the subsection on 
reproductive rights from the Human Rights Report's section on 
women, and also a reduction in reporting on issues affecting 
women and LGBTI individuals, including gender-based violence. 
This report should be a gold standard, a gold standard human 
rights report, and it is used, not just by the United States, 
but by others. Having vigorous reporting upon reproductive 
rights and fair treatment of women is really important.
    Oxfam issued a report noting a reduction in 31 percent on 
reporting in--on women's issues in the 2017 report as compared 
to 2016, and it looks like that is going to be a continued 
trend. Many domestic agencies use the information in the Human 
Rights Report to make determinations on immigration and asylum 
cases. And many international organizations look to us as the 
authority on human rights reporting, including the reproductive 
rights. And then they use their resources--or they use our 
report to determine how to allocate their resources.
    Thirty-one of us sent a letter recently to Secretary Pompeo 
asking that the reproductive rights section be restored. I am 
heartened to see that the laws in the countries that you have 
been nominated to represent have a good track record on 
reproductive rights issues. There is nobody that cannot 
improve, including us, but generally, the track records are 
positive. But there are issues, such as early marriage and 
access to neonatal and maternal healthcare, that remain in each 
of your nations. And I hope, even if we are not reporting as 
vigorously as we have in the past, I just will hope that you 
will take seriously the importance of advocating for 
reproductive and all equality rights for women in the societies 
should you be confirmed.
    I would like to ask questions to each of you. So, Ms. 
Mahoney, loved hearing about your public service children, 
including a George Mason student. My wife teaches at George 
Mason. The election--the recent election of the independent 
candidate, Patrice Talon, in 2016 was determined to be free and 
fair by international election observers. But he has soon, 
after taking control or taking power, taken an aim at 
democratic institutions to some degree. In addition to banning 
public sector strikes, he has taken steps to curtail freedom of 
expression, including shutting down media outlets that are 
critical of him and imposing a tax on internet and social media 
use. As a U.S. Ambassador, how will you try to promote freedom 
of expression in Benin?
    Ms. Stevenson. Thank you for the opportunity to address 
this very important question, Senator. As it stands right now, 
I believe that there is one publication which has been 
suspended, La Nouvelle Tribune. Right now, its operations have 
been suspended, and this is a newspaper that I think was 
characterized by sometimes unfavorable coverage of the 
administration.
    Benin in general has a very vibrant and open press and a 
very vibrant and open civil society as well. And if confirmed, 
I will build on what the embassy in Cotonou is already doing to 
underscore and to stress at--in every engagement and at every 
opportunity the importance of freedom of expression, and to 
continue our programs which are most vigorously used through 
the International Visitors Leadership Program to train and 
professionalize journalists, especially in the field of 
investigative journalism. Thank you.
    Senator Kaine. Thank you for that. Mr. Paschal, let me ask 
you this question. Troops from ECOWAS were put into Gambia as a 
military intervention to counter the previous leader's effort 
to hold onto power in 2017. That mission--I think it is now 
called ECOMIG--remains in The Gambia. What are the pros and 
cons of the continued presence of these ECOWAS troops in The 
Gambia, and should we be advocating that they stay for their 
withdrawal, or is this a situation that you think is in a--is 
in a good position on its own right now?
    Mr. Paschall. Yeah, thank you, Senator. ECOWAS was 
instrumental, as you know, in the transition and ensuring that 
the votes of the people were honored and respected by former 
President Jammeh. The introduction of ECOWAS forces was crucial 
to provide reassurance to the population. There are remaining 
questions in many Gambians' minds about the--about the security 
services based on--based on history. I would be remiss if I did 
not point out that The Gambia has long contributed troops to 
the U.N. peacekeeping mission in Darfur. And they have, as far 
as I have been able to learn, have always performed honorably 
and admirably in the field. So, there is a core of 
professionalism there, and as I noted in my opening remarks, 
those who wear the uniform and serve honorably and serve the 
people can be a force for good.
    The continuance of ECOMIG obviously is a decision that 
fundamentality rests with the government of The Gambia and 
the--and the ECOWAS heads of state. I believe, at least insofar 
as I have read and understand, they provide some stability 
during the continued transition period. We are just--we are 
still under 2 years since President Barrow took office, and 
they generally are viewed as a stabilizing force. They are also 
taking part in the international efforts to provide some 
security sector reform support to The Gambia. So, at present, I 
think, on that theory, they continue to be a positive--a 
positive presence.
    Senator Kaine. Thank you. Thank you, Mr. Paschall. And 
finally to Ms. Stevenson, you dealt with this a little bit in 
your prepared testimony, your opening comments. But obviously, 
there are significant issues of democracy and institutions and 
respect for those institutions. In Equatorial Guinea, the 
government has shown a real interested in engaging in dialogue 
with political opposition, significant human rights abuses, 
security forces using excessive violence, deadly force and 
imposition of external exile on political opposition members, 
fairly brutal prison conditions, harsh restrictions on civil 
society and civil liberties, widespread corruption, violence 
against women with impunity, restrictions on freedom of 
expression and freedom of the press, and a litany of other 
concerns.Should you be confirmed, how will you try to use the 
power of the position to engage with civil society elements in 
Equatorial Guinea to strengthen them?
    Ms. Stevenson. Thank you, Senator. As you point out, it is 
going to be a challenging environment. I know that my 
predecessor is working very vigorously in engaging with civil 
society, and if confirmed, I would want to continue this. I 
would also want to show the government of Equatorial Guinea 
that it is in their own interest to have more representation to 
cultivate civil society because the lack of enfranchisement 
actually affects their stability.
    They have been worried about the threat of coups. They have 
been--as recently as December 2017, arrested over 40 people for 
plotting a coup, and that shows that although the tenure of 
President Obiang has been quite long, it has not been smooth. 
And hopefully with this window of opportunity as the 
hydrocarbon industry is no longer the gravy train for the 
country, they will be able to reassess and choose what is right 
for their people. And if confirmed, I will work very 
dedicatedly on helping the government of Equatorial Guinea see 
that there are other choices and that opening up will actually 
help them, not harm them.
    Senator Kaine. Thank you. Thanks, Mr. Chair. Thanks to 
Senator Booker.
    Senator Flake. Thank you. Senator Booker.
    Senator Booker. Ms. Stevenson, your son's name is Hugh?
    Ms. Stevenson. Hugo.
    Senator Booker. Hugo. It is a little unorthodox, Hugo, but 
would you stand up for a second? Oh my God, sit down. 
[Laughter.]
    Senator Booker. I had some----
    Ms. Stevenson. You have made his day.
    Senator Booker. I had some really, really tough questions 
for you. But now that I see you have Hugo, who has a very 
intimidating stature and size, I am going to hold back a little 
bit. It is good that you brought him, sat him in the front row. 
I am a big guy, but I would have a tough time. But what you 
said is really right. This is a post that often affects 
families very deeply. And Hugo obviously has had a privilege of 
being overseas, but it is also a sacrifice as well. And for all 
of you, I am grateful for that. Senator Kaine, who just left, 
you know, e has to travel all the way from Virginia to get to 
D.C. It is real tough on him. But your family really does show 
that, and I just want to say thank you again.
    And so, Ms. Stevenson, it is a tough balance. Literally, we 
were having a conversation, some of my colleagues today, about 
Bahrain, about this balance between human rights issues and 
strategic interests or economic interests. And finding that 
right balance for a country leading with our values is very 
difficult.
    And so, I was wondering, in Equatorial Guinea you mentioned 
that--and rightfully so--the United States has an interest in 
supporting American firms involved in the oil and gas sector. 
At the same time, the Obiang administration has an abysmal 
human rights record. It has been accused of large-scale 
corruption, nepotism, and since the oil wealth of the 1990s, 
you have seen a lot of that bad behavior grow far more 
egregious. So, can you just give me some philosophical 
understanding and help really inform me about how you balance 
those interests that are in conflict? We have to admit that 
there is a conflict between those interests, and maybe you can 
give me an example of how we navigate that.
    Ms. Stevenson. I appreciate the question because obviously 
this is a big priority for the United States, but it is an 
environment that will be very difficult. As you have seen this 
year, Equatorial Guinea is a non- permanent member of the U.N. 
Security Council. They are on the world stage. The president 
had interventions during the U.N. General Assembly in 
September. This is important them, the international status. 
Being able to attract international investment is important to 
them. They had just announced pledges by U.S. companies to look 
at investing a further $2.4 billion in hydrocarbon industry.
    The fact that doing business in Equatorial Guinea is so 
difficult the fact that there are human rights abuses that my 
predecessor, who is still in place, has spoken out very 
vigorously against, these are stains on the record of the 
government. As long as the oil is flowing, there is perhaps a 
perceived less urgency to address these issues. I am hoping, if 
confirmed, that I will be able to use what is clearly a desire 
for international recognition to--as a lever to push the 
government to have--actually enforce some of the laws that they 
have on the books and to be able to have real elections, which 
their new constitution in 2011 does call for.
    Now, according to that constitution, the president could 
actually, theoretically, stand again, but, he has said that he 
does not want to stand again, so, there could be a window of 
opportunity. On a bright spot, we talked earlier about the 
importance of reproductive health and LGBT issues. The 
government of Equatorial Guinea has been--has had a fairly good 
record on LGBT issues, or at least has it on the books, issue 
same sex visas, has been--we have, as the U.S. Embassy, been 
able to program on those issues, and so we are--and we are--
continue to be able to engage with civil society.
    It is not all terrible, but I am going to continue pushing 
this rock uphill as my predecessors have done for a long time 
before me. But I am hoping that this window of the need,the 
urgency to reform the business community, diversify the 
economy, and attract more investment and engagement in the 
other areas will give us that window to push forward. It has 
happened before in other countries, and hopefully we will be 
able to make progress here.
    Senator Booker. Well, that is very helpful. Mr. Paschall, 
The Gambia has recently launched the Truth, Reconciliation and 
Reparations Commission, which I find very interesting. They are 
going to examine a lot of the disappearances that have 
happened, killings, and other very troubling human rights 
issues. And I wonder what are your ideas, because, the 
commission also faces a lot of challenges, and I am just not 
sure how successful they will be, as we have seen in other 
models in the continent. And how will it balance the need for 
justice for victims with a lot of the resentment you find from 
Jammeh supporters? And so, what, in your opinion, are the 
realistic outcomes that we should expect from the commission?
    Mr. Paschall. Thank you, Senator Booker. The TRC, they just 
swore in the commissioners last month. I think what is 
impressive, at least people who are expert in the field of 
transitional justice have told me, that the law that The 
Gambian legislature passed is a really good, strong law. It is 
well founded. Unfortunately, as you know, we have a lot of 
precedence for these types of efforts, and so, there are a lot 
of lessons learned.
    But it appears that, frankly, they have incorporated a lot 
of those lessons learned, at least in legislature framework, 
that is going to guide their efforts. They did--they have been 
working very hard to ensure that there is a lot of awareness. 
The commissioners have hit the ground running. They were sworn 
in, I believe, it was the 15th of October. They have already 
made a number of requests of the government, in particular, to 
provide assistance to the victims who suffered physical harm 
and some of those abuses.
    What can we expect at the end? That is a great question, 
and I think what is most important for us right now is to 
ensure that we are providing the support that we can provide to 
the operation of TRC and the active participation of The 
Gambian people themselves, the civil society in particular, to 
ensure that that process remains transparent, that it remains 
consistent with the very high goals that have been set, and 
that what comes out of it is meaningful and does help move the 
country forward while accounting for the many allegations and 
very well-documented cases of abuse that occurred previously.
    Senator Booker. Thank you very much. And very quickly with 
the indulgence of the chairman, this is interesting. In Benin 
almost 65 percent of the population is under the age of 25. The 
youth bulge is just something we have seen throughout Africa as 
well as the Middle East. And Benin's total fertility has been 
falling over time, but still remains high. And declining from 
almost seven children per woman in the 90s to now, I guess, it 
is 4.8. And so, Benin's low contraceptive use and high unmet 
need for contraception contribute to what is still considered a 
very high fertility rate.
    And just really quickly, what steps can the U.S. take or 
what foreign assistance programming could really target this 
large population in general, and how would you engage with the 
country's authorities to encourage policy changes to address 
the challenges and opportunities associated with the youth 
bulge?
    Ms. Stevenson. Thank you for the question, Senator. As you 
point out, economic development in Benin has not kept pace with 
the growth of the population. And there is this demographic 
bulge of very young people who will be in need of jobs and are 
in need of jobs right now. And I believe that President Talon 
is very acutely aware of the need to diversify the economy and 
to attract and unlock private investment as an engine to drive 
the economy so that it will be able to create jobs for this 
youth bulge and for these--this member--members of the 
demographic bulge.
    So, if confirmed, I would work to support the government's 
efforts to attract private investment and to diversify the 
economy, which is largely based on subsistence agriculture 
right now. And one of the programs that is under way aimed at 
doing that is our Millennium Challenge Corporation Compact, 
which is designed to remove one of the main constraints to more 
rapid economic growth, and to improve the reliability and the 
capacity of the power sector, and also to provide a regulatory 
framework to attract private investment, independent private 
power operators. So, that is one example of an area where we as 
the U.S. Government are working to support the government and 
the people of Benin to promote economic development and to help 
the government and the people in their efforts to diversify the 
economy.
    Senator Booker. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Flake. Thank you all. Thank you all for your 
preparation for this hearing, and thank the families as well 
for the sacrifice that you have made and will continue to make 
for this service. And I thank--the hearing record will remain 
open until the close of business tomorrow, including for 
members to submit questions for the record, and we would ask 
the witnesses to respond as promptly as possible. Your 
responses will be made as part of the record.
    But before I close, I will take the personal privilege to 
recognize my staffer here. Colleen Donnelly has been with me 
for over 10 years in the House and the Senate. This is likely 
the last hearing that she has prepared me for, and I just want 
to--her to know how much I appreciate her fine service to me, 
and to the committee, and to the Senate. And she will be missed 
around here. I have a feeling that she will be doing more of 
this for other members that are probably easier to work for, 
but I appreciate that. And thank you, all of you, for being 
here.
    Senator Booker. Mr. Chairman, can I take a moment of 
personal privilege? The hearing is officially almost over, and 
I just think I would like to memorialize your last hearing with 
a selfie with them in the background. [Laughter.]
    Senator Booker. I want to get the Ambassador nominees in 
there. [Photo.]
    Senator Flake. All right. Nothing is finished. I know there 
is a Booker selfie. [Laughter.]
    Senator Flake. That is wonderful. Thank you. Thanks to the 
committee. The hearing stands adjourned.


    [Whereupon, at 3:52 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
              Patricia Mahoney by Senator Robert Menendez

    Question 1. In your view, is Talon's appointment of Djogbenou a 
signal of a broader strategy to centralize power by putting allies in 
key judicial posts? What specific steps will you take if confirmed to 
monitor undue consolidation of power in the executive and prevent 
democratic backsliding?

    Answer. I take seriously concerns expressed by Benin's National 
Union of Magistrates (UNAMAB), among others, regarding the degradation 
of the independence of the judiciary as a result of recent changes in 
the judicial sector. I recognize the importance of ensuring that our 
partnership continues to thrive on shared democratic values to prevent 
backsliding. If confirmed, I will deploy available resources to engage 
the Government of Benin on the importance of maintaining Benin's 
commitment to the key principles of democracy and the rule of law, 
including the maintenance of a well-functioning, independent, and fair 
judiciary.

    Question 2. Talon's Government has also drawn criticism for what 
critics view as efforts to curtail free expression. The High Authority 
for Broadcasting and Communication has shut down several media outlets 
during his tenure, including a television station owned by his leading 
rival and an opposition newspaper. The state broadcaster has reportedly 
ceased its coverage of the opposition:

   In August 2018, Talon imposed via executive decree a tax on 
        internet and social media use, an action criticized by domestic 
        civil society. Do these actions in your view represent closing 
        media space? What will you do if confirmed to ensure that the 
        Government respects media freedoms?

    Answer. If confirmed, I will work with Embassy Cotonou to engage 
with the Beninese on press freedom and support for a more open media 
space. While Benin has a long-held tradition of upholding freedom of 
expression, last year the Government temporarily suspended several 
opposition media outlets. Most have since reopened but at least one 
opposition media outlet remains suspended indefinitely. Several 
journalists have reported government pressure for positive coverage, 
while others admit to self-censorship.
    The Government of Benin increased taxes on certain types of 
internet usage in 2018, but these taxes were quickly annulled in 
response to significant public opposition. Embassy Cotonou, at all 
levels, continually engages our Beninese partners on the importance of 
press freedom for maintaining a healthy democracy, and I pledge to 
continue to address this issue if confirmed. In addition, we will 
continue to use all the tools available to us to work with Beninese 
media on programs addressing media literacy, investigative journalism, 
and professionalism.

    Question 3. Benin was upgraded to Tier 2 in the 2018 Trafficking in 
Persons Report. What assistance are we providing to the Government of 
Benin to enact legislation to criminalize all forms of trafficking 
consistent with the 2000 U.N. TIP Protocol? Are we engaged in programs 
or activities to help law enforcement increase efforts to investigate, 
prosecute, convict, and adequately sentence trafficking offenders, or 
train law enforcement officials on identification and referral 
procedures?

   Does the Government have the resources to increase funding to the 
        Central Office for the Protection of Minors (OCPM) to provide 
        adequate support to victims? What actions will you take if 
        confirmed to help the Government of Benin improve its efforts 
        to combat trafficking?

    Answer. Embassy Cotonou assists the Government of Benin in its 
anti-trafficking efforts by engaging with all levels to increase 
awareness and to spur action to counter trafficking. One example of 
United States' Government assistance was our support for Benin's 
organization of a national anti-Trafficking in Persons (TIP) workshop 
in 2017. Benin has demonstrated significant efforts to combat TIP and 
was upgraded from Tier 2 Watch List to Tier 2 in the 2018 TIP Report. 
Successful efforts by the Government include increased prosecutions and 
convictions of child traffickers; more child trafficking victims 
identified; establishment of formal procedures for identification and 
referral of children vulnerable to abuse, including trafficking; 
introduction of screening procedures at airports to identify adult 
victims traveling abroad; and increased collaboration with neighboring 
countries to prevent transnational trafficking of adults resulting in 
the identification of 16 potential trafficking victims. Benin also 
established an inter-ministerial committee to coordinate national anti-
trafficking efforts, which developed a national action plan to address 
all types of trafficking in persons, including adults, in collaboration 
with non-governmental organizations (NGOs) and international 
organizations.
    Benin must enact legislation to criminalize all forms of 
trafficking, including trafficking of adults, consistent with the 
Palermo Protocol, and implement the 2018-2021 national action plan. The 
Government of Benin should increase efforts to investigate, prosecute, 
convict, and adequately sentence offenders of sex and labor trafficking 
of adults and children and train law enforcement officials on 
identification and referral procedures. If confirmed, I will work with 
the Government of Benin to increase its success in countering all forms 
of human trafficking.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my Foreign Service career I have worked to 
advance United States policy to support and promote democracy and human 
rights. I regard that work as not only essential to my mission as a 
diplomat representing values of the United States but also among the 
most personally rewarding aspects of my career. With the exception of 
some successes in the cases of specific dissidents, human rights 
activists, and refugees, the impact of my individual efforts is 
difficult to identify immediately or as exclusively the result of my 
intervention. Instead, I believe that the impact of my efforts has 
generally been incremental (as in a counterpart government's long-term 
efforts to institutionalize accountability mechanisms for its military) 
or part of a broader team effort (as when our Embassy, the Department 
of State, other U.S. agencies, members of Congress, and civil society 
advocated against the Anti-Homosexuality Act in Uganda). If confirmed, 
I commit to continue promoting and supporting democracy and human 
rights in the Republic of Benin.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in Benin? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. One of the most pressing challenges facing Benin's 
democratic development is the need to increase transparency in 
governance and develop more accountable and responsive institutions. 
Helping Benin accomplish this is one of Embassy Cotonou's top mission 
goals. Major obstacles to this goal include: unemployment and poverty; 
a population dissatisfied with the provision of public services; 
corruption among the ranks of government officials; limited issues-
focused debate in the political arena; and undue limitations to freedom 
of expression.

    Question 6. What steps will you take--if confirmed--to support 
democracy in Benin? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will collaborate with the Government of 
Benin, political parties, civil society, other diplomatic missions, and 
other stakeholders to promote political reforms, enhance democratic 
institutions and broaden political space, and strengthen electoral 
institutions. I will utilize all diplomatic tools available to advance 
our policy goals of promoting democracy and governance, improving well-
being and economic prospects of Benin's growing population; and 
strengthening regional security.
    I will, if confirmed, continue our diplomatic engagement to impress 
upon the Government of Benin that improving governance will increase 
the confidence Beninese citizens have in their leaders and 
institutions. We will demonstrate our strong support for good 
governance and strong democratic institutions through our public 
diplomacy and International Narcotics and Law Enforcement programming, 
as well as our flagship health and energy development programs, through 
USAID and MCC, respectively.

    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Embassy Cotonou deploys multiple assistance programs to 
help support democracy and governance in Benin. I will work, if 
confirmed, with the Government to strengthen Benin's democracy with 
these programs, which include public diplomacy activities that support 
Beninese civil society organizations and media and promote a free and 
independent media. We also support programming on police accountability 
and law enforcement coordination following the integration of the 
gendarmerie into the national police to help reinforce civilian 
policing in the domestic security domain as well as training and 
equipment for police in rural border areas help officers better serve 
citizens by responding to needs and maintaining security. USG health 
programs strengthen citizen engagement with government in identifying 
priority services and ensuring accountability of the public sector. In 
addition, we work with civil society and the Government to advance the 
country's potential membership to the Open Government Partnership, 
which reinforces good governance by establishing standards for 
transparency and accountability. If confirmed, I will work closely with 
our various Embassy sections and agencies to explore ways that my 
position can help advance the objectives of our programs in Benin, and 
ways to target our assistance to encourage important reforms that will 
lead to a more transparent and accountable government.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Benin? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to meet with civil society members, 
human rights and other non-governmental organizations (NGOs) in the 
United States and with local human rights NGOs in Benin. While Benin's 
record on human rights is generally positive, I will be ready to use 
the diplomatic tools at my disposal to encourage further improvements 
and address issues that arise during my tenure.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I will meet with democratically oriented 
political opposition figures and parties. A democratically oriented 
political opposition is a healthy part of any democracy, and it is 
important that the embassy hear from many sides of the political 
spectrum. I will continue Embassy Cotonou's efforts to advocate for 
access and inclusivity for women, members of minority groups, and youth 
within Benin's political parties.

    Question 10. Will you and your embassy team actively engage with 
Benin on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Benin?

    Answer. If confirmed, I will work with Embassy Cotonou to engage 
actively with Benin on press freedom, and address government efforts to 
control or undermine the press. I will commit to meet regularly with 
the independent local press in Benin, if confirmed.

    Question 11. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, Embassy Cotonou and I will continue our 
engagement with civil society and government to counter disinformation 
and malign propaganda disseminated by foreign state or non-state actors 
in Benin.

    Question 12. Will you and your embassy teams actively engage with 
Benin on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If I am confirmed, my leadership team and I will actively 
engage with Beninese interlocutors on labor rights, including with 
respect to freedom of association and the strengthening of independent 
trade unions. I will work with the Government of Benin, worker 
organizations, unions and other members of civil society to promote the 
protection of internationally recognized labor rights by the 
Government. In light of recent strikes among the public sector workers 
and efforts to enact legislation limiting the right to strike, it is 
more important now than ever that we engage the Government of Benin on 
these rights.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Benin, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Benin? What specifically will you commit to do to help LGBTI 
people in Benin?

    Answer. I commit, if confirmed, to defending the human rights of 
all individuals in Benin, regardless of their sexual orientation or 
gender identity. There are no laws explicitly criminalizing same-sex 
activity in Benin, and no reports of criminal or civil cases involving 
consensual same sex sexual conduct but there is a negative stigma 
against the LGBTI community, and LGBTI community members report 
discrimination and social stigma based on sexual orientation.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Patricia Mahoney by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my Foreign Service career, I have worked to 
advance United States policy to support and promote democracy and human 
rights. I regard that work as not only essential to my mission as a 
diplomat representing the values of the United States but also among 
the most personally rewarding aspects of my career. With the exception 
of some key successes in the cases of specific dissidents, human rights 
activists, and refugees, the impact of my individual efforts is 
difficult to identify immediately or as exclusively the result of my 
intervention. Instead, I believe that the impact of my efforts has 
generally been incremental (as in a counterpart government's long-term 
efforts to institutionalize accountability mechanisms for its military) 
or part of a broader team effort (as when our Embassy, the Department 
of State, other U.S. agencies, Members of Congress, and civil society 
advocated against the Anti-Homosexuality Act in Uganda). If confirmed, 
I commit to continue promoting and supporting democracy and human 
rights in the Republic of Benin.

    Question 2. What are the most pressing human rights issues in 
Benin? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Benin? What do you 
hope to accomplish through these actions?

    Answer. The Government of Benin generally respects human rights. 
There are some significant human rights issues such as reported 
incidents of torture, which were punished by the authorities; arbitrary 
arrest and detention; harsh and life threatening prison conditions; and 
violations of freedom of expression against members of the press. There 
are also pressing concerns in Benin that need to be addressed, 
including trafficking in persons; abuse and discrimination against 
women and children; vigilante violence; lack of accountability in cases 
involving rape and violence against women due to inadequate enforcement 
and police training; female genital mutilation; and child labor.
    Benin has a long-held tradition of upholding freedom of expression; 
however, last year the Government temporarily suspended several 
opposition media outlets. While most have since re-opened, at least one 
opposition media outlet remains suspended indefinitely. Some 
journalists report pressure by the Government for positive coverage, 
while others admit to self-censorship. If confirmed, I will deploy all 
of our resources to work with the Government of Benin to promote human 
rights and democracy in Benin. Benin is a strong example of peace, 
stability and tolerance in the region. I will do my best to make sure 
our partnership continues to thrive on shared democratic values.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Benin in advancing 
human rights, civil society and democracy in general?

    Answer. Helping Benin address these human rights issues is one of 
Embassy Cotonou's top mission goals. Obstacles to achieving this 
include unemployment and poverty, an inefficient public sector, rising 
cross-border crime, endemic corruption among the ranks of government 
officials, and possible challenges to freedom of expression. If 
confirmed, I will focus my efforts on helping Benin overcome these 
obstacles and serve as a positive influence in West Africa for 
democratic governance, respect for human rights, and an active and 
engaged civil society.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Benin? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will work with Embassy Cotonou to engage 
actively with human rights, civil society, and other non-governmental 
organizations (NGOs) in the United States and with local human rights 
NGOs in Benin.
    The United States has a solid security sector partnership with 
Benin based on shared goals of regional peace and security, and we 
maintain a good relationship with the Beninese military and police. We 
have worked together in critical areas such as maritime security and 
peacekeeping. Our security assistance to the Beninese is designed to 
develop the professionalism of its ranks. Consistent with U.S. law and 
Department policy, all military or security force participants in U.S. 
Government-funded training programs undergo a Leahy vetting process to 
ensure there is no credible information implicating the participants or 
their units in the commission of gross violations of human rights 
(GVHRs). Security force units or members that are credibly implicated 
in GVHRs are not eligible to receive U.S. training or assistance. This 
process also reinforces our message that human rights violations by 
security forces will not be tolerated. If confirmed, I will actively 
support our Embassy in gathering information to contribute to important 
reports such as the Human Rights Report and Trafficking in Persons 
Report to highlight areas of weakness and opportunities for further 
cooperation between the United States and Benin, and will encourage 
Benin to move forward with the creation of an independent national 
human rights commission.

    Question 5. Will you and your embassy team actively engage with 
Benin to address cases of key political prisoners or persons otherwise 
unjustly targeted by Benin?

    Answer. If confirmed, I will continue the work Embassy Cotonou 
already engages in on this issue. I will call on the Government of 
Benin to uphold human rights, including freedoms of expression and 
peaceful assembly, as well as internet freedom. We will work to ensure 
that individuals arrested on criminal charges are afforded fair trial 
guarantees.

    Question 6. Will you engage with Benin on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. I will engage with the Government of Benin, local civil 
society, and other stakeholders on matters of human rights, including 
civil rights and governance, if confirmed. Working with the Embassy and 
our counterparts in the Government of Benin, we will continue to work 
to promote political reforms, enhance democratic institutions, broaden 
political space, and strengthen electoral institutions.
    I will engage with the Government of Benin on improving governance, 
and emphasize that improved governance will increase the confidence of 
Beninese citizens in their leaders and institutions. We will 
demonstrate our strong support for good governance and strong 
democratic institutions through our public diplomacy and programming 
from the Bureau of International Narcotics and Law Enforcement (INL), 
as well as through our flagship health (United States Agency for 
International Development) and energy (Millennium Challenge 
Corporation) development programs.

    Question 7. Benin is ranked Tier 2 in the State Department's 2018 
Trafficking in Persons (TIP) report. Where has Benin been most 
successful in countering TIP, and why hasn't it fully implemented State 
Department TIP recommendations?

    Answer. The U.S. Government and Embassy Cotonou assist the 
Government of Benin in its anti-trafficking efforts by engaging at all 
levels with Benin's Government to increase awareness of trafficking and 
to spur action to counter trafficking. One example of United States' 
Government assistance was our support for Benin's organization of a 
national anti-TIP workshop in 2017. We are exploring other ways to 
support Benin's anti-trafficking efforts.
    The Government of Benin has demonstrated significant efforts to 
combat Trafficking in Persons (TIP) and as a result was upgraded from 
Tier 2 Watch List to Tier 2 in the 2018 Trafficking in Persons Report. 
Successful efforts by the Government include increased prosecutions and 
convictions of child traffickers during the reporting period for the 
2018 TIP report; the identification of more child trafficking victims; 
establishment of formal procedures for identification and referral of 
children vulnerable to abuse, including trafficking; introduction of 
screening procedures at airports to identify adult victims traveling 
abroad; and increased collaboration with neighboring countries to 
prevent transnational trafficking of adults, resulting in the 
identification of 16 potential trafficking victims. The Government of 
Benin also established an inter-ministerial committee to coordinate 
national anti-trafficking efforts, which developed a national action 
plan to address all types of trafficking in persons, including adults, 
in collaboration with NGOs and international organization. Benin must 
enact legislation to criminalize all forms of trafficking, including 
trafficking of adults, consistent with the Palermo Protocol and 
implement the 2018-2021 national action plan. The Government of Benin 
should increase efforts to investigate, prosecute, convict, and 
adequately sentence offenders of sex and labor trafficking of adults 
and children and train law enforcement officials on identification and 
referral procedures.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules,and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in Benin?

    Answer. My investment portfolio includes funds that may have 
investments in companies in Benin; however, these funds are exempt from 
the conflicts of interest rules and have been reviewed by the State 
Department Ethics Office. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest. I will divest my 
interests in any investments the State Department Ethics Office deems 
necessary in the future to avoid a conflict of interest, and will 
remain vigilant with regard to my ethics obligations.

    Question 11. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my career I have benefited from the mentorship 
of my supervisors and have regarded mentoring employees to be among the 
most important and gratifying responsibilities of leadership. I have 
also experienced firsthand the benefits of collaborating in a diverse 
and inclusive workplace. If confirmed, I will continue to mentor staff 
from all backgrounds, establish open lines of communication, and do my 
utmost to ensure that each receives the training, acquires the 
expertise, and is afforded the opportunity needed to advance in the 
Foreign Service.

    Question 12. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Building upon the existing Equal Employment Opportunity 
program at the Embassy, I will, if confirmed, ensure regular training, 
engagement, and interaction on this topic. I will make clear at the 
outset that I expect supervisors to foster an environment that is 
diverse and inclusive, and I will model that behavior myself.

    Question 13. How do you believe political corruption impacts 
democratic governance and the rule of law, and in Benin specifically?

    Answer. Corruption among the ranks of government officials is an 
obstacle to democratic governance and the rule of law in Benin. 
President Patrice Talon has described endemic corruption as one of the 
country's biggest problems, and has made it a key part of his 
administration's development agenda. If confirmed, I will work together 
with our team at Embassy Cotonou to continue ongoing efforts to impress 
upon the Beninese Government that anti-corruption measures must 
demonstrate that no person or group of people is above the law.

    Question 14. What is your assessment of corruption trends in Benin 
and efforts to address and reduce them by the Government of Benin?

    Answer. President Talon developed an agenda that includes reforms 
to the political system and a strategy to fight corruption. The 
Government of Benin has made some progress, but more work remains. The 
Government recently pursued several high profile cases of public sector 
corruption and imposed administrative punishment or dismissals on civil 
servants found to have engaged in corruption. Other measures to uproot 
corruption include the modification of rules regarding the procurement 
and use of official vehicles; the consolidation of government travel 
arrangements under a single provider; professionalization reforms and 
training to improve the conduct of police officers, such as the 
cessation of a previous practice of roadblocks along major 
thoroughfares to stop and ``inspect'' vehicles for bribes; and the 
trial and sentencing of five major pharmaceutical wholesalers for 
participating in the proliferation of counterfeit medications. Some of 
these anti-corruption efforts have been recently implemented, so in due 
time it will become evident the degree to which these efforts are 
reinforcing norms of fairness across the political spectrum.

    Question 15. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Benin?

    Answer. If confirmed, I will work with Embassy Cotonou and the 
Government of Benin in support of their anticorruption efforts. For 
example, we are working with civil society and the Government to 
advance the country's potential membership to the Open Government 
Partnership, which reinforces good governance by establishing standards 
for transparency and accountability. I will actively engage local civil 
society partners and explore ways to help advance important reforms at 
both the national and local levels that will lead to a more transparent 
and accountable government.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Patricia Mahoney by Senator Cory A. Booker

Constitutional Reform
    Question 1. President Talon recently decided to put his 
constitutional reform project on hold, arguing that the organization of 
a vote would cost too much and was not a priority. The reforms included 
the improvement of women's representation in parliament, the abolition 
of the death penalty, the establishment of a court of auditors and, 
most importantly and controversially, the consolidation of all 
elections:

   What is your evaluation of this decision to not move forward with 
        these constitutional reforms and to what degree should the U.S. 
        engage on these issues?

    Answer. President Talon campaigned on a reformist platform prior to 
taking office in 2016. While some Beninese may have found his 
constitutional reform project a fulfillment of a campaign promise, 
others have indicated they believe his reforms are moving too quickly. 
Other criticisms of the Talon administration's constitutional amendment 
proposals are based upon reforms being achieved through changes to 
legislation instead, where there is no need to make so many changes to 
the constitution. Following the failure of the amendment proposals, the 
Talon administration has moved forward with some of the proposed 
reforms through legislation.
    If confirmed, I will address the need for reform in those areas 
that affect good governance. I will also engage the Government of Benin 
and its people in areas like increasing women's participation in 
politics.
Renewable Energy
    Question 2. In 2017 the Millennium Challenge Corporation signed a 
$375 million compact with Benin that aims to develop Benin's power 
sector through investments in energy generation and distribution and 
off-grid electrification, including renewable energy projects:

   Could you describe the degree to which renewable projects are 
        prioritized over those that rely on fossil fuels as part of the 
        compact?

    Answer. The $375 million Benin MCC Power Compact prioritizes 
renewable sources of power generation over fossil fuels. The compact 
will support the construction of 45 Mega Watts (MW) of solar 
photovoltaic generation through a bankable independent power project 
(IPP) transaction, as well as off-grid electrification projects (mainly 
solar) through the Off-Grid Clean Energy Facility (www.ocef.bj)--the 
largest of its kind supported by the United States Government in a 
single country.
    The compact is also making major investments in Benin's electricity 
distribution system that will reduce technical losses, and include 
support for energy efficiency measures. Both of these activities will 
assist in lowering costs while reducing the consumption of fossil fuel 
sources of electricity, which currently account for most of the power 
consumed in Benin.
Candidate Fees
    Question 3. The Benin parliament recently passed legislation that 
would increase the fee for registering a Presidential candidate or for 
submitting a party list for parliamentary elections to over $400,000. 
The law has been overwhelmingly condemned by political parties, civil 
society groups and the public, who accuse the president of formulating 
laws to favor the rich and privileged:

   What is your opinion of this move and should the U.S. engage on 
        this issue?

    Answer. Of the various amendments to the Electoral Code passed by 
Benin's parliament on September 3, the most controversial was the 
amendment increasing several fees: the fee for presidential candidates 
increased from $27,000 to $447,000; and the fee for parliamentary 
elections increased from $175 per candidate to $429,000 for a party 
list of 83 names. Benin has long been a model of multi-party democracy 
in West Africa, with six consecutive free and fair presidential 
elections, and peaceful transfers of power, since 1991. If confirmed, I 
will work to engage with the Government of Benin on any challenges to 
that democracy, using all the tools in our diplomacy toolkit.



                               __________


     Responses to Additional Questions for the Record Submitted to 
        Richard Carlton Paschall III by Senator Robert Menendez

    Question 1. Gambia was selected for an MCC Threshold Program in 
2017, which is now under development with implementation slated to 
begin in mid-2019. What other assistance has the U.S. provided since 
President Adama Barrow? How much of that assistance has been 
specifically aimed at democracy and governance? Has any of the 
assistance been aimed at helping build democratic institutions and 
improve governance in Gambia? What will you do, if confirmed, to help 
the Barrow administration build democratic institutions and foster 
political participation in Gambia?

    Answer. With The Gambia's change to democracy, the United States 
has embarked on a number of programs, through the State Department and 
other U.S. Government agencies, to bolster capacity in financial 
management and financial crimes investigations, strengthen civil 
society, advance security sector reform, and improve health care. The 
Millennium Challenge Corporation is working with the Government of The 
Gambia to identify projects in a Threshold Program to remove 
constraints to economic growth and better integration into regional 
infrastructure and market activities. In addition, we have programs in 
the pipeline to improve agricultural productivity, bolster fiscal 
transparency, and support electoral and legislative reforms.

    Question 2. In late 2017, Gambia regained eligibility under the 
Africa Growth and Opportunity Act (AGOA). How has the country taken 
advantage of AGOA? What steps will you take as Ambassador to help, if 
confirmed?

    Answer. In January 2018, the United States restored AGOA trade 
benefits to The Gambia due to progress in strengthening the rule of 
law, improving respect for human rights, and supporting political 
pluralism. If confirmed, I will encourage the Gambian Government to 
continue demonstrating progress on the full range of AGOA eligibility 
criteria, and as noted in my statement, I will work to help Gambian 
businesses take advantage of AGOA.

    Question 3. The 2018 Trafficking in Person's Report lists Gambia as 
Tier 2 Watch List. What programs and activities are we undertaking to 
help Gambia improve its ranking? What steps will you take to advocate 
for an improved approach to trafficking by the Barrow administration.

    Answer. The Department of State's 2018 Trafficking in Persons 
report placed The Gambia on the Tier 2 Watch List for the second 
consecutive year. The Government demonstrated significant efforts 
during the reporting period for the 2018 TIP Report by identifying and 
providing services to an increased number of potential trafficking 
victims, assisting with repatriation of Gambian child trafficking 
victims exploited abroad, and continuing efforts to prevent forced 
child begging in Quranic schools. However, the Government did not 
initiate any trafficking investigations, complete any trafficking 
prosecutions, or adequately fund The Gambia's National Agency Against 
Trafficking in Persons, which severely impeded the Government's ability 
to investigate reports of human trafficking. If confirmed, I will 
partner closely with The Gambia's National Agency Against Trafficking 
in Persons and engage with stakeholders throughout the country to 
highlight the problem. I also commit to working closely with colleagues 
at State and in other U.S. Government agencies to work with The Gambia 
to increase its capacity to prevent trafficking crimes, protect 
victims, investigate and prosecute trafficking offenses and convict and 
hold trafficking offenders accountable.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Fundamental American values that I have sought to project 
and promote abroad include respect for human rights and the dignity of 
individuals, and the importance of democratic principles and 
accountability of a government to those it governs. I have sought to 
engage with people in every position I have held to advance these 
concepts--whether democracy and human rights promotion was formally 
included in my job duties or not--from my earliest tour in Saudi Arabia 
through my most recent in the Bureau of Counterterrorism and Countering 
Violent Extremism. Fundamentally, it starts with how you interact with 
your colleagues. Treating co-workers--whether American or Foreign 
National--with dignity and respect is the first foundational aspect of 
how we promote such treatment among other people, between nations, or 
between a foreign government and those it governs.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in the Gambia? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Under the current Barrow administration, some concerns 
remain with undue intermittent restrictions on press freedom, freedom 
of association, and the right of peaceful assembly. The Department of 
State 2017 Human Rights Report indicates harsh and potentially life-
threatening prison conditions, arbitrary arrests, lack of 
accountability in cases involving violence against women, including 
rape and female genital mutilation/cutting; trafficking in persons: and 
child labor as the most significant human rights problems in The 
Gambia. The Gambia recognizes these challenges but struggles with 
deeply rooted cultural norms and lack of resources to adequately 
address the problems. If confirmed, my priorities will include 
continuing to work with the Government of The Gambia and civil society 
organizations to develop strong government institutions, and promote 
inclusive, effective, and participatory governance.

    Question 6. What steps will you take--if confirmed--to support 
democracy in the Gambia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The Gambia's democratic development continues to have 
numerous challenges as it remains in the early stages of a transition 
from decades of authoritarian rule. The challenges include, but are not 
limited to, promoting greater adherence to the constitution and 
democratic values including strengthened rule of law and sound policy 
making, countering deeply entrenched mismanagement and corruption at 
all levels of government, and advancing security sector reform.

    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will work to ensure our assistance programs 
prioritize those efforts that will prove the most beneficial in the 
long term to strengthening democracy, justice, and good governance, 
while seeking to maximize cost efficiencies and avoid duplication with 
other U.S. Government or international donor efforts.
    If confirmed, our assistance will prioritize those efforts that 
will prove the most beneficial in the long term to strengthening 
democracy, justice, and governance programs, while seeking to maximize 
cost efficiencies and avoid duplication with other U.S. Government or 
international donor efforts.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in the Gambia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will engage with members of civil society, 
human rights and other NGOs, whether in The Gambia or in the United 
States. I will also pro-actively engage the Government of The Gambia to 
address any situation in which NGOs or other civil society 
organizations are unduly restricted or penalized by the authorities. If 
confirmed, I will continue to prioritize the protection and defense of 
civil society, including all human rights defenders.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, my priorities will include regular meetings 
with all democratically oriented political actors. I will use all tools 
at my disposal to encourage the creation and maintenance of an 
inclusive and transparent political system, dedicated to democracy, and 
accessible to women and members of minority groups.If confirmed, I will 
ensure that the U.S. Mission to The Gambia continues to make efforts to 
include women, girls, individuals from ethnic and religious minority 
groups, young people, and other underrepresented groups in our 
programming efforts. I will also prioritize women's and girls' access 
to and participation in the education, justice, health care, and 
economic sectors.

    Question 10. Will you and your embassy team actively engage with 
the Gambia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in the Gambia?

    Answer. If confirmed, I will continue to support all efforts to 
advance press freedom. I will meet with independent media and local 
press as part of our Embassy's efforts to reinforce a free and open 
media environment in The Gambia.

    Question 11. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I commit to ensuring the embassy remains 
actively engaged with government counterparts and members of civil 
society to counter any disinformation or malign propaganda disseminated 
by any foreign or non-state actors. Given how damaging disinformation 
campaigns can be, we will remain vigilant should any such methods of 
propaganda emerge in The Gambia.

    Question 12. Will you and your embassy teams actively engage with 
the Gambia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will continue engagement with the Gambian 
labor movement, independent trade unions, and other non-governmental 
organizations dedicated to defending labor rights under the law.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the Gambia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in the Gambia? What specifically will you commit to do to help 
LGBTI people in the Gambia?

    Answer. The Gambia is a tolerant, multi-ethnic, multi-religious 
society. If confirmed, I will use my office to highlight the strengths 
of diversity and acceptance of all individuals for who they are. The 
United States is rightfully proud of the strides we have made, and 
continue to make, in living up to our founding principle that everyone 
is equal under the eyes of the law. I believe that if confirmed, I can 
use the persuasive power of the Embassy to help Gambians begin to 
address this important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
       Richard Carlton Paschall III by Senator Benjamin L. Cardin

    Question 1. How can we support these new institutions in the Gambia 
such as the Commission as it pursues this work?

    Answer. The leaders and employees at government ministries in The 
Gambia have my utmost respect as they have shown the will to move their 
country forward on a clear democratic path. The United States is 
working hand-in-hand with our Gambian partners to improve capacity by 
supporting the work of the Truth, Reconciliation, and Reparations 
Commission (TRRC) to ensure civilian and NGO engagement with the 
Commission is bolstered. Likewise, we support capacity training in 
numerous ministries and provide advisers on security sector reform and 
government financial planning. Additionally, U.S. Government exchange 
programs broaden Gambian leaders exposure to our democratic 
institutions which will help inform their work when they assume 
leadership roles within government. If confirmed, I will work to ensure 
capacity building programs for government and civil society continue.

    Question 2. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Fundamental American values that I have sought to project 
and promote abroad include respect for human rights and the dignity of 
individuals, and the importance of democratic principles and 
accountability of a government to those it governs. I have sought to 
engage with people in every position I have held to advance these 
concepts--whether democracy and human rights promotion was formally 
included in my job duties or not--from my earliest tour in Saudi Arabia 
through my most recent in the Bureau of Counterterrorism and Countering 
Violent Extremism. Fundamentally, it starts with how you interact with 
your colleagues. Treating co-workers--whether U.S. or Foreign 
National--with dignity and respect is the first foundational aspect of 
how we promote such treatment among other people, between nations, or 
between a foreign government and those it governs.

    Question 3. What are the most pressing human rights issues in the 
Gambia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the Gambia? What do 
you hope to accomplish through these actions?

    Answer. Under the current Barrow Government, some concerns remain 
with intermittent undue restrictions on press freedom, freedom of 
association, and the right of peaceful assembly. The Department of 
State 2017 Human Rights Report indicates harsh and potentially life-
threatening prison conditions, arbitrary arrests, lack of 
accountability in cases involving violence against women, including 
rape and female genital mutilation/cutting; trafficking in persons and 
child labor as the most significant human rights problems in The 
Gambia. The Gambia recognizes these challenges but struggles with 
deeply rooted cultural norms and lack of resources to address the 
problems adequately. If confirmed, my priorities will include 
continuing to work with the Government of The Gambia and civil society 
organizations to develop strong government institutions, and promote 
inclusive, effective, and participatory governance.

    Question 4. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Gambia in 
advancing human rights, civil society and democracy in general?

    Answer. The Gambia's democratic development continues to have 
numerous challenges as it remains in the early stages of a transition 
from decades of authoritarian rule. The challenges include, but are not 
limited to, promoting greater adherence to its constitution and 
democratic values including strengthening the rule of law and sound 
policy making, countering deeply entrenched mismanagement and 
corruption at all levels of government, and advancing security sector 
reform.

    Question 5. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Gambia? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will engage with members of civil society, 
human rights and other NGOs, whether in The Gambia or in the United 
States. A core component of any nation's security services is to 
protect and serve the people--the individuals--in any country. This is 
no different in The Gambia, where recent memory of abuses by security 
services remain fresh and raw. It is imperative that we engage, in 
partnership with others, to ensure that compliance with international 
humanitarian law and international human rights law are foundational 
aspects of the training and performance expectations of Gambian 
security forces.

    Question 6. Will you and your embassy team actively engage with the 
Gambia to address cases of key political prisoners or persons otherwise 
unjustly targeted by the Gambia?

    Answer. One of the first actions undertaken by President Barrow 
following his assumption of office was to free prisoners of conscience 
detained under his predecessor's administration. If confirmed, my 
country team and I will continue to engage with the Government of The 
Gambia to ensure that such violations do not happen again and that 
ensure that accountability for past acts is achieved through The 
Gambia's Truth, Reconciliation, and Reparations Commission.

    Question 7. Will you engage with the Gambia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes, reinforcing the fundamental concepts of respect for 
human rights, dignity of the individual, and good governance are core 
U.S. Government objectives in The Gambia and will remain so in the 
foreseeable future. If confirmed, I will continue this longstanding 
U.S. Government policy approach.

    Question 8. Where has the Gambia been most successful in countering 
TIP, and why hasn't it fully implemented State Department TIP 
recommendations?

    Answer. The Department of State's 2018 Trafficking in Persons 
report placed The Gambia on the Tier 2 Watch List for the second 
consecutive year. The Government demonstrated significant efforts 
during the reporting period for the 2018 TIP Report by identifying and 
providing services to an increased number of potential trafficking 
victims, assisting with repatriation of Gambian child trafficking 
victims exploited abroad, and continuing efforts to prevent forced 
child begging in Quranic schools. However, the Government did not 
initiate any trafficking investigations, complete any trafficking 
prosecutions, or adequately fund The Gambia's National Agency Against 
Trafficking in Persons, which severely impeded the Government's ability 
to investigate reports of human trafficking. If confirmed, I will 
partner closely with The Gambia's National Agency Against Trafficking 
in Persons and engage with stakeholders throughout the country to 
highlight the problem. I also commit to working closely with colleagues 
at the State Department and in other U.S. Government agencies to work 
with The Gambia to increase its capacity to prevent trafficking crimes, 
protect victims, investigate and prosecute trafficking offenses and 
convict and hold trafficking offenders accountable.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in the Gambia?

    Answer. My investment portfolio includes funds that may have 
investments in companies in The Gambia; however, these funds are exempt 
from the conflict of interest rules. I also have financial interests in 
several large companies with a global business, but those holdings are 
either below the $15,000 de minimis threshold in the conflict of 
interest laws or were not identified as posing a conflict of interest. 
All of my financial interests were reviewed by the State Department 
Ethics Office. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest. I will divest my interests in 
any investments the State Department Ethics Office deems necessary in 
the future to avoid a conflict of interest, and will remain vigilant 
with regard to my ethics obligations.

    Question 12. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. One of our country's greatest strengths, especially when we 
are representing our nation overseas and advancing our national 
security interests, is our diversity--ethnic, religious, racial, 
gender, sexual orientation and identity, background and upbringing. I 
have strived throughout my career to be a colleague, leader, mentor and 
friend in fierce support of our nation's promise of equality to all, 
embracing our differences and distinctions because that diversity is a 
fundamental reflection of what makes the United States of America so 
uniquely great. I will continue to advocate for and personally work 
towards a work force that represents the diversity of the America we 
represent abroad.

    Question 13. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. There is simply no room for a failure to foster a diverse 
and inclusive environment. I will foster a work environment in which 
personnel are treated with respect and dignity. It's far from simply a 
policy or legal question--it's a need to get the very best America has 
to offer, the very best our foreign national employees have to offer, 
and to leverage our diversity to find more creative and innovative 
solutions to the foreign and national security challenges our nation 
faces. Secretary Pompeo has pledged to foster a more diverse and 
inclusive Department of State, and demanded that every member of our 
agency treat their colleagues with dignity and respect. I share his 
commitment, and if confirmed, I will ensure that there is no lack of 
clarity on my expectation that each member of my Embassy team will work 
every day to advance these principles.

    Question 14. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in the Gambia 
specifically?

    Answer. Poverty in The Gambia is rooted in the deeply entrenched 
mismanagement and corruption of the state. Specifically, official 
corruption opens the door to human rights abuses and overall negatively 
affects good governance and the rule of law. The Gambia recognizes that 
eliminating corruption is essential to gaining the trust of its 
citizens and creating an environment conducive to investment. To that 
end, The Gambia is increasing government transparency and working to 
eliminate corruption.

    Question 15. What is your assessment of corruption trends in the 
Gambia and efforts to address and reduce it by that government?

    Answer. The Barrow administration has made significant strides to 
reduce the deeply entrenched corruption that exists at every level of 
government. The U.S. Government is assisting The Gambia through 
multiple anti-corruption courses and public corruption investigation 
trainings through the International Law Enforcement Academy in 
Gaborone, and the West Africa Regional Training Center (RTC) in Accra, 
Ghana. In addition, a joint program between the Departments of Justice, 
Homeland Security, and State is providing targeted training and advice 
to support Gambian efforts to investigate financial crimes.

    Question 16. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in the Gambia?

    Answer. If confirmed, I will support The Gambia's continued efforts 
to combat corruption. I will also seek to advance human rights in The 
Gambia by working with the Government to address the culture of 
impunity and official corruption that has opened the door to human 
rights violations and abuses in the past. I will also support U.S. 
efforts that focus on developing stronger Gambian institutions that can 
effectively combat corruption, narcotics trafficking, and transnational 
crime.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Richard Carlton Paschall III by Senator Cory A. Booker

    Question 1. What specific metrics should the international 
community be closely monitoring to ensure that this critical transition 
does not go off track?

    Answer. The international donor community meets monthly to discuss 
metrics and programming regarding the transition. Monitoring the 
following metrics helps to assess this period of transition in The 
Gambia: GDP; level of debt; unemployment rate; percentage of students 
who pass college entrance exams; level of irregular migration out of 
the country; number of laws debated in parliament; and, international 
rankings--to include ease of doing business indexes and press freedom 
rankings.

    Question 2. As the Gambia strives to further develop its economy 
and resolve foreign debt issues, how will you engage with the 
Government to ensure it also protects its natural resources and does 
not enter into exploitative agreements with foreign companies or 
governments that will harm its long-term economic potential?

    Answer. It has become clear to many Africans that development and 
business deals with global partners require strict attention to ensure 
the needs of their own country's government, businesses, and people are 
the foremost beneficiaries. We encourage the international community to 
abide by internationally accepted environmental, labor, social, 
investment, and governance standards to ensure protection of natural 
resources and minimize exploitation. If confirmed, I will consider 
cooperation where our interests intersect and work to mitigate 
potential negative agreements that could harm The Gambia's long-term 
economic potential.

    Question 3. What foreign assistance or U.S. technical assistance 
regarding the protection of marine fisheries and ending illegal, 
unreported and unregulated fishing are needed in the Gambia?

    Answer. I understand the Embassy in Banjul is in close touch with 
the Fisheries Minister regarding the challenges to fisheries and 
illegal, unreported, and unregulated (IUU) fishing. Expanding regional 
programs offered via the defense attache, Drug Enforcement 
Administration and other law enforcement agencies would provide 
training opportunities to key agencies to help them hone the tools and 
skills necessary to intercept illegal activities at ports and at sea.

    Question 4. What should be the priorities in this security sector 
reform and are there ways that we can help that we are not already 
doing?

    Answer. President Barrow has announced on numerous occasions his 
support for security sector reform. The State Department, through the 
Peacekeeping Operations account on a Bureau of African Affairs managed 
contract, funds a security sector advisor who has worked in close 
cooperation with The Gambia's National Security Advisor for the past 
year, and provides technical subject matter expertise and coordinates 
U.S. activities with security sector reform efforts of other 
international partners. It is important to acknowledge that The Gambia 
has for many years been a contributor to the U.N. peacekeeping Mission 
in Darfur--there is a solid foundation of professionalism in much of 
the Gambian security sector, even if there are challenges in 
institutional capacity and accountability for wrongdoing. There are a 
number of international partners working in this area, and if confirmed 
I commit to ensuring that the burden of this work is shared 
appropriately and that U.S. efforts will be synchronized and 
coordinated with those of others to better ensure a positive outcome.

    Question 5. With these limited resources, how can we best target 
our assistance and creatively use other existing mechanisms to help 
encourage the reform process that President Barrow has initiated?

    Answer. If confirmed, I will ensure that U.S. assistance will 
target good governance, the reinforcement of democratic processes, and 
improved access to justice. By assisting Gambian institutions that 
fight against inequity and the lack of public accountability and 
transparency, and counter the drivers of violence and instability, we 
will be strengthening citizen-responsive governance, democracy, and 
respect for human rights.
    If confirmed, our assistance programs will prioritize efforts most 
beneficial in the long term to strengthening democracy, justice, and 
good governance, while seeking to maximize cost efficiencies and avoid 
duplication with other U.S. Government or international donor efforts.

    Question 6. And given France's recent announcement of a 50 million 
euros aid package that includes budgetary support, drinking water and 
agriculture projects, how do you think we can collaborate with France 
and other donors to maximize such assistance?

    Answer. The international donor community meets monthly to discuss 
how international aid can work together to best support The Gambia at 
this critical time. Our Embassy, together with the French and other 
donors, works beyond this formal meeting to share best practices and 
planning to ensure that U.S. assistance is strategically implemented 
and promotes democratic values.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Susan Stevenson by Senator Robert Menendez

    Question 1. In January, opposition political party Citizens for 
Innovation reported that one of its members Santiago Ebee Ela, died in 
January as a result of torture. Are their claims credible? Has Mr. 
Ela's death been credibly investigated? If confirmed, what concrete 
actions will you engage in to ensure that allegations of torture by 
government security services are thoroughly investigated and 
perpetrators held accountable?

    Answer. U.S. Embassy Malabo has serious concerns regarding the 
reports of the death of opposition member Santiago Ebee Ela while in 
the custody of Equatoguinean security forces. Spain and the European 
Union also stated similar concerns. President Obiang said in an 
interview with French television shortly after Mr. Ebee's death that 
President Obiang believed Mr. Ebee was ill when he was arrested and 
that this was the cause of his death. President Obiang promised an 
investigation into Mr. Ebee's death; however, the Equatoguinean 
Government has not conducted one to date as far as Embassy Malabo is 
aware. If confirmed, I will make sure that Embassy Malabo continues to 
investigate the reports and press the Equatoguinean Government to hold 
accountable those responsible for torture.

    Question 2. According to the Trafficking in Person's Report for 
2018, ``The Government of Equatorial Guinea does not fully meet the 
minimum standards for the elimination of trafficking and is not making 
significant efforts to do so; therefore Equatorial Guinea remained on 
Tier 3.'' What steps will you take, if confirmed, to ensure that the 
Government takes actions to prosecute suspects and identify and/or 
refer victims to care?

    Answer. If confirmed, I will work with like-minded Embassies and 
international organizations such as the United Nations Development 
Program (UNDP) to implement programs that the U.S. Embassy is 
supporting to train law enforcement and judicial authorities on 
trafficking in persons. The support also includes sensitization and 
public awareness campaigns. I will impress upon the Equatoguinean 
Government that the Tier 3 ranking is a serious impediment in the 
bilateral relationship. I will remind the Equatoguinean Government that 
the importance of combatting trafficking in persons is not a matter of 
simply meeting the U.S. reporting requirements. It is a matter of 
concern for the citizens of Equatorial Guinea. I would encourage 
relevant authorities to implement the recommendations for Equatorial 
Guinea outlined in the 2018 Trafficking in Persons Report which include 
developing and implementing an Action Plan, investigating potential 
trafficking cases, using the 2004 anti-trafficking law to prosecute and 
convict traffickers, and other methods to combat trafficking.

    Question 3. Equatorial Guinea ranks 171 out of 180 on Transparency 
International's 2017 Corruptions Perceptions Index. What are the major 
barriers to transparency in Equatorial Guinea? What could the U.S. do 
to support improvement in this area? What specifically will you do to 
help foster improved transparency in Equatorial Guinea, if confirmed?

    Answer. Public sector corruption in Equatorial Guinea is a serious 
problem. If confirmed, I will remind the Equatoguinean Government that 
U.S. companies remain the gold standard. By complying with the Foreign 
Corrupt Practices Act, U.S. companies demonstrate through their actions 
that public sector corruption is not permissible and serves as an 
impediment to attracting foreign Investment. The Government's interest 
in rejoining the Extractive Industries Transparency Initiative is a 
positive step in this direction. Certain U.S. foreign assistance to the 
Government of Equatorial Guinea is restricted based on the country's 
middle-income status and its Tier 3 Trafficking in Persons ranking, and 
concerns about human rights abuses also hinders cooperation. However, 
if confirmed, I will continue to leverage grant programs, U.S. exchange 
opportunities, higher education in the United States, public events, 
and other outreach activities as appropriate to influence and encourage 
young leaders to demand greater accountability from their Government. I 
will emphasize and underscore the importance of eliminating corruption 
at all levels and reinforce the important role of civil society in 
pushing for greater transparency and accountability in my messaging and 
cooperation with civil society, the international community, and 
others.

    Question 4. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. While serving as press attache at the U.S. Embassy in 
Beijing, I had an international platform through which I could shine 
the light on China's troubling human rights abuses, including reports 
of arbitrary detentions of Chinese dissidents. When we knew of a 
troubling case, we made sure to coordinate with Washington so that the 
individual could be mentioned from the podium at the State Department 
as well as by my office in Beijing. In addition, U.S. legal permanent 
residents often told us that they were treated better in prison because 
the Chinese authorities knew that the Americans were watching.
    Also in China, we organized the embassy's presidential election 
watch party in 2008. The event was significant for three reasons: we 
provided actual ballots from the state of California that had been 
translated into Chinese, showing attention to the diversity of American 
voters; we prepared a mock ballot for our Chinese guests, allowing them 
to experience voting not only for the president but for local 
initiatives; and we witnessed the election of someone from a minority 
group, a result that was unimaginable in China. I made sure to 
highlight the concession and acceptance speeches to the Chinese press, 
demonstrating the peaceful transition of power in a democracy. The 
event had a significant impact for many of the guests, given the 
contrast with their own one-party dictatorship.
    One of the guests was a journalist who traveled to the United 
States on a Foreign Press Center program to witness the 2004 election 
first hand. He was able to witness campaign rallies and voting in local 
precincts. When he returned to China, he wrote a book on his 
experiences to explain the American system, and we featured him in 
interviews by other Chinese journalists in 2008. This made the story 
acceptable to Chinese censors, since it was told by a Chinese national 
rather than an American, allowing for the story's publication to reach 
a potential audience of hundreds of thousands.

    Question 5. What issues are the most pressing challenges to 
democracy or democratic development in Equatorial Guinea? These 
challenges might include obstacles to participatory and accountable 
governance and institutions, rule of law, authentic political 
competition, civil society, human rights and press freedom. Please be 
as specific as possible.

    Answer. U.S. policy priorities in Equatorial Guinea are to 
encourage the Government there to expand its democratic space, 
including increasing respect for human rights and fundamental freedoms, 
diversify its economy and strengthen our commercial ties, and ensure 
our engagement benefits the economic, health, and educational 
opportunities for all its citizens. Achieving these goals while faced 
with a very restricted media environment and two generations of 
citizens who have lived under one president are challenges. At the same 
time, Equatorial Guinea has been the third largest producer of oil in 
Sub-Saharan Africa and is a middle-income country. This economy and the 
youth bulge in country are forces that will need to be addressed to 
ensure a peaceful and prosperous future. Should I be confirmed, I will 
stress that promoting transparency and ending corrupt practices are key 
to Equatorial Guinea's long-term growth and stability.

    Question 6. What steps will you take--if confirmed--to support 
democracy in Equatorial Guinea? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. Good governance and democratization in Equatorial Guinean 
requires the Government to allow space for civil society leaders and 
political opposition parties to participate in the national debate on 
how to address some of the country's societal issues. If confirmed, I 
will encourage the Equatoguinean Government to build upon its July 2018 
political dialogue in order to build genuine political dialogue and the 
exchange of ideas. If confirmed, I will meet with a wide cross sector 
of Equatoguinean society. I will continue to leverage grant programs, 
U.S. exchange opportunities, higher education in the United States, 
public events, and other outreach activities to influence and encourage 
future and present leaders to demand greater accountability and push 
for greater space for dialogue from their Government. The largest 
potential impediments to increasing democracy in Equatorial Guinea is 
the ability of citizens to understand their laws and responsibilities 
as citizens and to express themselves freely, without fear of reprisal 
or undue restrictions.

    Question 7. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Certain U.S. foreign assistance to the Government of 
Equatorial Guinea is restricted based on the country's Tier 3 ranking 
in the 2018 annual Trafficking in Persons report. However, if 
confirmed, I will continue to provide assistance consistent with 
applicable legal limitations, such as through the Ambassador's Special 
Self-Help Fund and Democracy Funds, to ensure that our engagement 
benefits the economic, health, and educational opportunities for all 
its citizens by supporting the development of civil society, 
transparency, and good governance. For example, this year the Embassy 
is working with the United Nations Development Program and the 
Government of the Republic of Equatorial Guinea to increase public 
awareness and provide training for government officials to prevent 
trafficking in persons. I would also prioritize programs that support 
the development of Equatorial Guinea's people, such as entrepreneurship 
and education programs, which increase people-to-people interactions 
between our nations and provide opportunities for economic growth and 
increased trade.

    Question 8. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Equatorial Guinea? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. If confirmed, I am committed to meeting with organizations 
and individuals that are concerned with human rights and civil society 
issues in Equatorial Guinea. I would make sure that the Department of 
State documents in the annual Human Rights Report efforts by the 
Government of the Republic of Equatorial Guinea to restrict unduly or 
penalize the lawful activities of NGOs and other civil society 
organizations and raise the issue at the highest levels of government.

    Question 9. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meet with all democratically 
oriented political figures and parties. I would encourage the 
government to create a truly independent Ombudsman, as well as an 
Electoral Commission that will allow the citizens of the country to 
raise concerns with the appropriate authorities and vote freely. If 
confirmed, I would encourage the Government to open more space for 
people, political parties, and organizations, to express their opinions 
freely without fear of reprisals.

    Question 10. Will you and your embassy team actively engage with 
Equatorial Guinea on freedom of the press and address any government 
efforts designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Equatorial Guinea?

    Answer. Yes. If confirmed, I commit to engage with Equatorial 
Guinea on press freedom and address any government efforts designed to 
control or undermine press freedom. I also commit to meeting regularly 
with independent, local press in Equatorial Guinea should I be 
confirmed.

    Question 11. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, my team and I will actively counter 
disinformation and malign propaganda disseminated by foreign state or 
non-state actors in Equatorial Guinea.

    Question 12. Will you and your embassy teams actively engage with 
Equatorial Guinea on the right of labor groups to organize, including 
for independent trade unions?

    Answer. Although labor law prohibits antiunion discrimination, the 
State Department's 2017 Human Rights Report states that the 
Equatoguinean Government placed practical obstacles before groups 
seeking to organize, such as not allowing groups to register legally. 
If confirmed, I will actively engage the Government on the right of 
labor groups, including independent trade unions, to organize.

    Question 13. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Equatorial 
Guinea, no matter their sexual orientation or gender identity? What 
challenges do the lesbian, gay, bisexual, transgender and intersex 
(LGBTI) people face in Equatorial Guinea? What specifically will you 
commit to do to help LGBTI people in Equatorial Guinea?

    Answer. If confirmed, I commit to using my position to defend the 
human rights and dignity of LGBTI people living in Equatorial Guinea. 
According to the 2017 State Department Human Rights Report, there are 
no laws criminalizing same-sex relations, but the Government took few 
steps to combat societal stigmatization of, and discrimination against 
LGBTI people. If confirmed, I will build upon my predecessors' 
engagement with the LGBTI community in Equatorial Guinea by opening our 
embassy as a space for the exchange of ideas and identifying exchange 
programs for LGBTI leaders so that they can learn best practices from 
the United States and elsewhere as they pursue their rights.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Susan Stevenson by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. While serving as press attache at the U.S. Embassy in 
Beijing, I had an international platform through which I could 
illuminate China's troubling human rights violations and abuses, 
including reports of arbitrary detentions of Chinese dissidents. We 
worked to ensure our efforts were closely coordinated with Washington. 
In addition, U.S. legal permanent residents often told us that they 
were treated better in prison because the Chinese authorities knew that 
the Americans were watching.
    Also in China, we organized the embassy's presidential election 
watch party in 2008. The event was significant for three reasons: We 
provided actual ballots from the state of California that had been 
translated into Chinese, showing attention to the diversity of American 
voters; we prepared a mock ballot for our Chinese guests, allowing them 
to experience voting not only for the president but for local 
initiatives; and we witnessed the election of someone from a minority 
group, a result that was unimaginable in China. I made sure to 
highlight the concession and acceptance speeches to the Chinese press, 
demonstrating the peaceful transition of power in a democracy. The 
event had a significant impact for many of the guests, given the 
contrast with their own one-party dictatorship.
    One of the guests was a journalist who traveled to the United 
States on a Foreign Press Center program to witness the 2004 election 
first hand. He was able to witness campaign rallies and voting in local 
precincts. When he returned to China, he wrote a book on his 
experiences to explain the American system, and we featured him in 
interviews by other Chinese journalists in 2008. This made the story 
acceptable to Chinese censors, since it was told by a Chinese national 
rather than an American, allowing for the story's publication to reach 
a potential audience of hundreds of thousands.

    Question 2. What are the most pressing human rights issues in 
Equatorial Guinea? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in Equatorial 
Guinea? What do you hope to accomplish through these actions?

    Answer. The most important human rights problems for Equatorial 
Guinea, as noted in the State Department's 2017 Human Rights Report, 
include excessive use of force and torture by security forces; severe 
conditions in detention facilities, arbitrary arrest and incommunicado 
detention, the use of internal exile against political opponents, 
restrictions on privacy rights and freedom of movement, denial of 
freedoms of expression, peaceful assembly, and association, including 
for members of the press; the inability of citizens to choose their 
Government in free and fair elections; widespread official corruption; 
and violence against women. If confirmed, I will pursue opportunities 
to continue to engage leaders from the Government, opposition parties, 
and civil society to increase respect for human rights and protection 
for fundamental freedoms, and to press Equatorial Guinea to abide more 
fully by democratic principles.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Equatorial Guinea 
in advancing human rights, civil society and democracy in general?

    Answer. President Obiang has governed Equatorial Guinea since 1979. 
Decision making power is highly concentrated which can lead to delays 
in the implementation of certain reforms. The rights of members of 
civil society, media, and political parties that are not supportive of 
the ruling Democratic Party of Equatorial Guinea (PDGE) are severely 
restricted. Many individuals choose not to criticize the Government and 
security forces due to fear of reprisal.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Equatorial Guinea? If confirmed, what steps 
will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to meeting with organizations 
and individuals that are concerned with human rights and civil society 
issues in Equatorial Guinea. Ensuring that the United States does not 
provide assistance to foreign security force units that violate human 
rights is crucially important. If confirmed, I will ensure that Embassy 
Malabo personnel responsible for Leahy vetting are familiar with that 
process and can implement vetting fully and effectively. I will engage 
host government interlocutors to remind them of the importance the 
United States places on respect for human rights.

    Question 5. Will you and your embassy team actively engage with 
Equatorial Guinea to address cases of key political prisoners or 
persons otherwise unjustly targeted by Equatorial Guinea?

    Answer. Yes, if confirmed, I will engage with the Equatoguinean 
Government on prisoners of conscience and persons otherwise unjustly 
targeted by the Government.

    Question 6. Will you engage with Equatorial Guinea on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. If confirmed, I will engage regularly on human rights, 
including civil rights, and governance with the Government of 
Equatorial Guinea, opposition parties, NGOs, and civil society.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Equatorial Guinea?

    Answer. My investment portfolio includes funds that may have 
investments in companies that operate in Equatorial Guinea; however, 
these funds are exempt from the conflicts of interest rules and have 
been reviewed by the State Department Ethics Office. I also have 
financial interests in several large companies with a global business, 
but none were identified as posing a conflict of interest. I am 
committed to ensuring that my official actions will not give rise to a 
conflict of interest. I will divest my interests in any investments the 
State Department Ethics Office deems necessary in the future to avoid a 
conflict of interest, and will remain vigilant with regard to my ethics 
obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I hope to continue the initiatives that I 
have undertaken as the Principal Deputy Assistant Secretary the Bureau 
of Public Affairs and as the president of an employee affinity group, 
which include unconscious bias training, organizing professional 
development sessions focused on diversity and inclusion, and seeking to 
remove barriers to advancement for all employees. Not only does the 
Bureau of Public Affairs have an active diversity initiative, but we 
have placed people with disabilities into prominent positions based on 
their skills. American legal protections from discrimination and to 
promote accessibility are hallmarks of our society and values that I 
will promote, if confirmed, among both my American and locally-engaged 
staffs.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that each of the supervisors at 
Embassy Malabo--many of whom will be in supervisory positions for the 
very first time--have access to training on unconscious bias and 
harassment. I will set out my expectations from the start and model the 
behavior I would like to see in them. If given this opportunity, I will 
ensure that diversity and inclusion are part of every officer's work 
commitments.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Equatorial 
Guinea specifically?

    Answer. Political corruption weakens democratic governance and the 
rule of law by eroding citizens' faith in those systems. Political 
corruption can lead to widespread apathy. At its worse, political 
corruption can lead to instability. Corruption remains a major concern 
in Equatorial Guinea. The State Department's 2017 Human Rights Report 
notes that while Equatoguinean law provides severe criminal penalties 
for official corruption, the Government did not implement the law, 
allowing officials to engage in corrupt practices with impunity at all 
levels.

    Question 13. In your testimony, you highlighted the importance of 
strengthening commercial ties between Equatorial Guinea and the United 
States. How do you intend to promote this without furthering the 
already rampant corruption and further entrenching President Obiang's 
dictatorship?

    Answer. Encouraging greater U.S. business engagement and investment 
that is fully compliant with the Foreign Corrupt Practices Act can help 
promote international best practices in Equatorial Guinea. If 
confirmed, I will emphasize to government, private sector, and civil 
society representatives that stable and open political space, 
corruption free institutions and processes, and fair and equal 
treatment of investors are essential to improving the investment 
climate--and the key to economic diversification. I will also work 
closely with like-minded governments and international partners already 
working in Equatorial Guinea to improve the business climate, 
governance, accountability, and transparency.

    Question 14. What is your assessment of corruption trends in 
Equatorial Guinea and efforts to address and reduce it by that 
government? If confirmed, how would you engage the Government of 
Equatorial Guinea regarding its reported lack of transparency and high 
levels of corruption? What steps would you take to strengthen good 
governance and anticorruption programming in Equatorial Guinea?

    Answer. Public sector corruption in Equatorial Guinea is a serious 
problem. If confirmed, I will leverage the Government's interest in 
diversifying its economy to press for greater anti-corruption measures 
along with more stringent transparency and accountability mechanisms as 
a means of attracting foreign investment. Although U.S. engagement may 
be constrained by both the country's Tier 3 ranking on the annual 
Trafficking in Persons report and from concerns about human rights 
abuses, I will continue to leverage grant programs, U.S. exchange 
opportunities, higher education in the United States, public events, 
and other outreach activities to influence and encourage young leaders 
to demand greater accountability from their Government. I will 
emphasize and underscore the importance of eliminating corruption at 
all levels and reinforce the important role of civil society in pushing 
for greater transparency and accountability in my messaging and 
cooperation with civil society, the international community, and 
others.

    Question 15. What impact has corruption had on development and the 
provision of social services in Equatorial Guinea? To what extent has 
the Government of Equatorial Guinea used its oil wealth to fund social 
services, public infrastructure, or efforts to improve the state's 
capacity to implement development programs?

    Answer. Corruption has hindered the full and effective delivery of 
social services in Equatorial Guinea. Despite its high GDP, the 
Government distributes social services poorly and unevenly. However, 
capacity constraints and technical expertise gaps have also impeded 
better implementation. In response, the Government has partnered with 
U.S. oil and gas companies' corporate social responsibly arms to 
develop and run targeted programs. Equatorial Guinea graduated from the 
U.N.'s list of least developed countries (LDC) in 2017, even though its 
Human Assets and Economic Vulnerability indices remain low. The 
Government also self-funds the majority of the United Nations' 
development programs in Equatorial Guinea. Through its development 
program called Horizon 2020, the Government spent significant resources 
on large public infrastructure projects, such as modern highways, 
public buildings, recreational spaces, and a new airport terminal that 
is expected to open in early 2019. The Government has prioritized the 
delivery of electricity to most citizens as well. The next phases of 
the development program were stalled by the economic downturn of the 
last few years. The Government is readdressing the Horizon 2020 program 
in March 2019 to address the human capacity and industrialization 
goals.

    Question 16. If confirmed, how will you engage with the 
Equatoguinean Government to take the charity selection process 
seriously and push Nguema to fully relinquish his assets?

    Answer. If confirmed, I will coordinate with the Department of 
Justice regarding the Government of the Republic of Equatorial Guinea's 
compliance with the agreement. I would also engage with the appropriate 
Equatoguinean interlocutors and the United Nations implementers as 
needed to help ensure that the agreement is implemented to the full 
benefit of the Equatoguinean people.

    Question 17. Do you believe investigations by the United States and 
other foreign governments (e.g. France's 2017 conviction of Nguema for 
embezzlement) are an effective way to hold corrupt Equatoguinean actors 
accountable?

    Answer. Investigations by the United States and other foreign 
governments are one tool that can be effective in ascertaining the 
extent of ill-gotten gains and other benefits of corruptions outside of 
Equatorial Guinea.

    Question 18. Do you believe economic sanctions would incentivize a 
reduction in corruption among Obiang and his cronies?

    Answer. Economic sanctions are a powerful tool the U.S. Government 
possesses. If confirmed, I will consult frequently with my colleagues 
at Embassy Malabo and in Washington to identify the best ways to 
support good governance and the fight against corruption in Equatorial 
Guinea.

    Question 19. How will you work with colleagues at the State 
Department and the Department of the Treasury to track the Obiang 
administration's illicit financial activity?

    Answer. If confirmed, I and my subject matter experts at Embassy 
Malabo will communicate regularly with relevant offices in the State 
Department and the Treasury to track illicit financial activity.

    Question 20. If confirmed, how will you engage with the 
Equatoguinean Government for the extradition of Jammeh to Gambia so 
that he may be held accountable for the crimes committed under his 
regime?

    Answer. If confirmed, I will seek to monitor any formal requests by 
the Gambian Government for Mr. Jammeh's extradition or return. I would 
encourage the Equatoguinean Government to comply with all of their 
international obligations concerning the extradition or return of 
Jammeh to the Gambia.

    Question 21. How credible were the 2016 presidential and 2017 
legislative elections? How have election processes evolved over time? 
What is your assessment of the recent national dialogue?

    Answer. The State Department's 2017 Human Rights Report notes 
``irregularities and nontransparency'' in the 2017 legislative and 
municipal elections and the 2016 presidential election. Unfortunately, 
elections and political participation remain areas of concern for the 
country. The July 2018 national dialogue had mixed outcomes. On a 
positive note, Equatoguinean television carried the event live and the 
Government did not censor it. Opposition parties like the Convergence 
for Social Democracy openly called for a peaceful and democratic 
discussion about a transition to a future government. This opposition 
party has not suffered any repercussions to date for this dissent.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Susan Stevenson by Senator Cory A. Booker

    Question 1. Do you agree that political leaders of Equatorial 
Guinea, including the Vice President, meet the statutory requirements 
to be sanctioned under the Global Magnistky Act as implemented under 
Executive Order 13818?

    Answer. Global Magnitsky is a powerful sanctions program and you 
have my commitment, if confirmed, to support its use as appropriate. No 
region is immune from human rights abuse or corruption. If confirmed, I 
will use all available resources to work with the Treasury Department 
to determine if any Equatoguinean citizens should be sanctioned under 
the Global Magnitsky Act as implemented under Executive Order 13818.

    Question 2. Has the State Department made a policy determination 
not to sanction political leaders of Equatorial Guinea in spite of 
evidence of actions that would make them eligible for asset blocking 
and visa denials under the Global Magnistky Act?

    Answer. Global Magnitsky is a powerful sanctions program and you 
have my commitment, if confirmed, to support its use as appropriate. No 
region is immune from human rights abuse or corruption. If confirmed, I 
will use all available resources to work with the Treasury Department 
to determine if any Equatoguinean citizens should be sanctioned under 
the Global Magnitsky Act as implemented under Executive Order 13818. 
Embassy Malabo has consistently reviewed each application from 
political leaders on a case-by-case basis, in line with our 
responsibilities under the Vienna Convention while applying all 
applicable laws. Visa eligibility is governed by U.S. immigration law, 
including the Global Magnitsky Act. If I am confirmed, I will continue 
to insist on appropriate review of all visa applications, including 
those received from Equatoguinean leaders.

    Question 3. What is the status of the joint selection of a charity 
or other organization by Nguema and the U.S. Government to receive the 
settlement assets, as stipulated in the settlement, which was supposed 
to occur within 180 days of the sale of Nguema's property?

    Answer. In March 2018, the U.S. Government notified the Government 
of the Republic of Equatorial Guinea that the settlement agreement 
moved forward to the distribution of the settlement funds. At that 
time, the representative of then-Second Vice President Teodoro Nguema 
Obiang Mangue and the Department of Justice agreed to program the funds 
through the United Nations Joint Fund for Agenda 2030 as the U.S. 
Government had been unable to find a charity or other organization that 
could effectively disburse the amount of money committed that met the 
criteria of the full agreement. Since March 2018, the parties have been 
developing the program to be implemented in Malabo. The Department of 
Justice is planning to program the funds this calendar year.

    Question 4. As a result of this settlement and his involvement in 
significant acts of corruption, has Nguema been banned from travel to 
the United States, except as part of official travel to the United 
Nations? If not, why not?

    Answer. I have not participated in any policy discussions to date 
regarding a travel ban on any Equatoguinean nationals.



                               __________


                              NOMINATIONS

                              ----------                              


                    TUESDAY, DECEMBER 4, 2018 (A.M.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senators Gardner [presiding], Rubio, and Markey.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This committee will come to order.
    Let me thank all of you for your time today, your 
willingness to serve. Welcome to this full committee hearing of 
the Senate Foreign Relations Committee on nominations. Today, 
we will examine the Ambassadorial nominations to the nations of 
Mongolia, Cambodia, and Brunei Darussalam.
    I would like to warmly welcome the nominees and their 
families who are here today. Thank you for your service. This 
is not just an individual post. This is a family post, and we 
are grateful to all of you for your willingness to allow 
spouses and family members to serve in this capacity. We are 
grateful for it. So, welcome.
    Senator Markey, I will turn it over to you for your opening 
statement.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman. And thank you for 
your partnership and your leadership on the subcommittee in 
this past year.
    Beyond the importance of these three countries themselves, 
this hearing also is critical because of a number of key 
issues--China's growing regional influence, North Korea's 
illicit trade relations and human rights--are all relevant to 
the countries for which these witnesses have been nominated to 
be Ambassador. And I am particularly interested in hearing how 
our nominees plan to address the challenges of promoting U.S. 
values and strategic interests in countries where there is 
still progress to be made.
    In the interest of time, I will conclude my opening 
remarks, and I look forward to hearing from the witnesses.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you. And we have a hearing after 
this on China as well. I was going to say nice things about 
Senator Markey there, but I am going to say them here.
    Senator Markey, thank you for your great partnership this 
past Congress on issues related to Asia. I think we have done 
some great things in committee. I just appreciate all the work 
that you have been helping us accomplish this year. So, thank 
you.
    Our first nominee is Mr. Michael Klecheski. He is a career 
member of the Senior Foreign Service, Class of Minister-
Counselor, who is currently Deputy Chief of Mission at the 
United States Embassy in Manila, Philippines, a position he has 
held since 2015.
    Welcome, Mr. Klecheski, and thank you very much for your 
service.
    We are also joined by our second nominee, Mr. Matthew 
Matthews. He is a career member of the Senior Foreign Service, 
Class of Minister-Counselor, who has served as an American 
diplomat since in 1986. He is currently Ambassador for Asia-
Pacific Economic Cooperation and Deputy Assistant Secretary for 
Australia, New Zealand, and the Pacific Islands in the Bureau 
of East Asian and Pacific Affairs.
    Mr. Matthews, thank you, welcome. Thank you for your 
service.
    Our final nominee is Mr. Patrick Murphy, career member of 
the Senior Foreign Service, Class of Minister-Counselor, who is 
currently Acting Principal Deputy Assistant Secretary in the 
Bureau of East Asian and Pacific Affairs. Mr. Murphy has served 
for over 25 years in the Senior Foreign Service in numerous 
senior positions.
    Welcome, Mr. Murphy. Thank you for our service as well.
    Thank you all. I will turn to you for your 5 minutes of 
opening statements.
    Mr. Klecheski, please begin.

STATEMENT OF MICHAEL S. KLECHESKI, OF NEW YORK, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF MONGOLIA

    Mr. Klecheski. Thank you, Mr. Chairman, Ranking Member 
Markey.
    It is really an honor to appear before you as President 
Trump's nominee to be Ambassador to Mongolia. I am grateful for 
the support and confidence of the President and Secretary 
Pompeo. Working these many years in the Foreign Service has 
been a privilege, most importantly because it has allowed me to 
serve my country, and I would be honored to do so again in this 
important capacity.
    I have blessed by a supportive, loving family. My wife, 
Eloisa, who I feel fortunate to have with me here today, and 
our three children--Stefan, Kara, and Adam--have been with me 
throughout. We have traveled throughout the world, and I really 
could not have done it without them.
    Last year marked 30 years of our diplomatic relations and 
27 years since Mongolia's peaceful transition from communism to 
democracy. Looking back, the United States takes pride in 
having assisted Mongolia's market-oriented reforms and expanded 
political, cultural, education, and defense cooperation. These 
have clearly served both our interests. Today, as an open free-
market society, Mongolia is a model for others who wish to join 
the community of free, democratic countries.
    We have built a close relationship with Mongolia on a 
foundation of shared values and common interests. Mongolia 
takes active part in the Community of Democracies and recently 
participated enthusiastically and constructively in the 
Secretary of State's first-ever Ministerial to Advance 
Religious Freedom. It has also announced the designation of its 
own first-ever Ambassador at Large for Religious Freedom.
    It has been with us in forging a safer, more just world. 
Its soldiers have stood alongside our own in Iraq and 
Afghanistan, all while sustaining one of the world's largest 
per capita U.N. peacekeeping contributions.
    President Trump has set forth a vision of an Indo-Pacific 
in which all nations are sovereign, strong, and prosperous. And 
in this vein, Mongolia's continued independence is clearly in 
the U.S. national interest. So let me here just lay out a few 
key themes of effort that, were I to be confirmed, I would 
pursue to this end.
    So, first, Mongolia's sovereignty stems, to a significant 
extent, from its free-market economy and notable economic 
growth. It presents many opportunities for U.S. firms and 
investors, and if I were confirmed, I would focus heavily on 
economic and commercial issues. That would include alerting the 
U.S. private sector to those opportunities and advocating for 
American business. It also would involve supporting good 
governance, which is key to Mongolia's economic future and has 
really been a hallmark of U.S. programming.
    In these realms, there is much to build on. We already have 
engaged across a broad front to assist Mongolia in improving 
its business climate and protecting its economic autonomy. We 
are seeking full implementation of the U.S.-Mongolia 
Transparency Agreement, pushing for further improvements 
through the USTR-led Trade and Investment Framework Agreement, 
helping Mongolia develop robust anti-money laundering 
capabilities in partnership with the U.S. Treasury Department, 
and boosting U.S. exports and commercial opportunities through 
Commerce Department-led trade missions. And of course, the 
Millennium Corporation Challenge second compact also is pivotal 
in this regard.
    So it has really been a whole-of-government effort. And as 
an Ambassador, were I confirmed, I would, of course, make 
coordinating that effort in order to maximize the effectiveness 
of U.S. taxpayers' dollars of prime importance.
    As noted previously, Mongolia has been our steadfast 
partner in some of the world's most troubled regions. Mongolian 
troops serve in concert with the NATO coalition in Afghanistan. 
Many thousands of Mongolian soldiers have served in this role. 
Some thousand are currently active in U.N. peacekeeping 
missions in South Sudan and elsewhere.
    Indeed, on peacekeeping is another area Mongolia has proven 
a willing and able security partner. This is something I would 
obviously focus on as well.
    Then there is the question of shared values. From the 
outset of our bilateral relationship, the ties between our 
countries and our peoples have been a force for Mongolia's 
democratic development and the foundation of our friendship. 
Over 1,300 Peace Corps volunteers have served in Mongolia since 
1991, and they play a role in many areas, including English 
language education. USAID has played a significant role in 
terms of democratization and development. And I would, of 
course, continue our work in those areas and many others.
    Mr. Chairman, members of the committee, the U.S.-Mongolia 
relationship has been strong and highly constructive, and there 
is every reason to be optimistic that we can build on what has 
been achieved. So it would be my great honor, were the Senate 
to confirm my nomination, to pursue that effort.
    Thank you very much. And I would, of course, welcome your 
questions. Thank you.
    [Mr. Klecheski's prepared statement follows:]


               Prepared Statement of Michael S. Klecheski

    Mr. Chairman, Ranking Member Markey, members of the committee, it 
is my honor to appear before you as President Trump's nominee to be 
U.S. Ambassador to Mongolia. I am grateful for the support and 
confidence of the President and of Secretary Pompeo. Working these many 
years in the Foreign Service has been a privilege, most importantly 
because it has allowed me to serve my country, and I would be honored 
to do so again in this most important capacity.
    I have been blessed by a supportive, loving family. My wife Eloisa, 
who I feel fortunate to have here with me today, and our three 
children, Stefan, Kara and Adam, have traveled the globe with me. I 
could not have done it all without them.
    Last year we celebrated thirty years of diplomatic relations with 
Mongolia; it also marked the twenty-seventh year since Mongolia's 
peaceful transition from communism to democracy. Looking back, the 
United States takes pride in having assisted Mongolia's market-oriented 
reforms and expanded political, cultural, educational, and defense 
cooperation that has served both our countries' interests. Today, as an 
open, free-market society, Mongolia stands as a model for others in the 
region and around the world who wish to join the community of free, 
democratic countries.
    We have built a close relationship with Mongolia on a foundation of 
shared values and common interests. Mongolia is an active member of the 
Community of Democracies, and recently participated, enthusiastically 
and constructively, in the Secretary of State's first-ever Ministerial 
to Advance Religious Freedom. It has also announced the designation of 
its first-ever Ambassador at Large for Religious Freedom Issues for 
that purpose. Mongolia has also been with us in forging a safer, more 
just world: their soldiers have stood admirably alongside our own in 
Iraq and Afghanistan since 2003, all while sustaining one of the 
largest per capita U.N. Peacekeeping contributions.
    President Trump has set forth a vision of an Indo-Pacific in which 
all nations are sovereign, strong, and prosperous; in this vein, 
Mongolia's continued independence and autonomy are clearly in the U.S. 
national interest. I would like to lay out the key lines of effort 
that, were I to be confirmed as Ambassador, I would seek to pursue to 
this end.
Trade, Business, and Economics
    Mongolia's sovereignty stems, to a significant extent, from its 
free-market economy, and its notable economic growth and large reserves 
of coal, copper, gold, uranium, and other minerals present many 
opportunities for U.S. firms and investors. If confirmed as Ambassador, 
I would continue to focus heavily on economic and commercial issues, 
including alerting the U.S. private sector of the vast opportunities 
Mongolia offers and advocating for American business, as well as 
supporting good governance that is so vitally important to Mongolia's 
economic future and that has been one of the hallmarks of U.S. 
programming in this area.
    In these realms, there is much to build on. We already are engaged 
across a broad front to assist Mongolia in improving its business 
climate and protecting its economic autonomy, including by seeking full 
implementation of the U.S.-Mongolia Transparency Agreement; pushing for 
further improvements through the USTR-led Trade and Investment 
Framework Agreement discussions; helping Mongolia develop robust anti-
money laundering capabilities in partnership with the U.S. Department 
of the Treasury; and boosting U.S. exports and commercial opportunities 
through Department of Commerce-led trade missions.
    Mongolia's growth has reaped many rewards, but also placed 
significant strain on its infrastructure and environment. The challenge 
of ensuring the sustainable supply of water to the capital, 
Ulaanbaatar, is a striking example. Recognizing this hurdle to growth 
and challenge to the Mongolian capital's population, our Millennium 
Challenge Corporation has concluded an agreement to invest $350 million 
in a new water supply system for the city. Not only will this support 
much-needed infrastructure, but it also will foster the development of 
new regulatory and institutional reforms to set Ulaanbaatar--and 
Mongolia--on a path to more sustainable development. The success of 
this project is a top priority, and if confirmed, I would work closely 
with my MCC colleagues to ensure it accomplishes its goals.
Security
    As I noted previously, Mongolia has been a steadfast partner of the 
United States in some of the world's most troubled regions. Mongolian 
troops serve in concert with the NATO coalition in Afghanistan, and we 
were pleased that Mongolia's Prime Minister announced at his October 18 
White House meeting that his country would extend its NATO commitment 
beyond 2018. Nearly 1,000 Mongolian soldiers are also currently active 
in the U.N.'s peacekeeping missions in Sudan and South Sudan, where 
they have developed a reputation as an honorable and reliable force.
    Mongolia reinforces its peacekeeping capabilities each year in its 
Khaan Quest Exercise, which the United States co-hosts. That exercise 
takes place at the Five Hills Training Facility, the construction and 
maintenance of which the United States proudly supports. The U.S. Indo-
Pacific Command is a major actor in this, but it also is worth noting 
how tremendously constructive Mongolia's partnership with the Alaska 
National Guard has been, as part of one of the most successful 
partnerships of a state national guard abroad. Indeed, on peacekeeping 
as in other areas, Mongolia has shown itself a willing and able 
security partner, and it is clearly a worthy investment to continue our 
efforts to improve its armed forces' capability and interoperability.
Shared Values
    From the outset of our bilateral relationship, the ties between the 
people of the United States and Mongolia have served as a force for 
Mongolia's democratic development and the foundation of our friendship 
based on shared values. Deepening its ties not only to U.S. civil 
society, but also to international groups focused on democratic values 
and human rights, is essential to preserving Mongolia's political 
space, sovereignty, and independence.
    Over 1,300 Peace Corps volunteers have served in Mongolia since 
1991, including 97 at present; they play a vital role in many areas, 
including English-language education, thus helping address the hunger 
in Mongolia for knowledge of English. Support for English language 
education will strengthen our trade and investment opportunities and 
deepen people-to-people ties. If confirmed, I will also support 
continuing USAID's vital efforts in democratization and development as 
key foundations for Mongolia's sustained growth, orientation towards 
the West, and continued political and economic sovereignty. The USAID 
Leaders Advancing Democracy Project, or LEAD, connects young democratic 
leaders in Mongolia not only with their counterparts in the United 
States, but also in the region, building networks that improve their 
resilience and resourcefulness. We are already working with Mongolia to 
enhance border security and rule of law, and have launched an outreach 
campaign to promote responsible travel to the United States.
    Mr. Chairman, members of the committee, the relationship between 
the United States and Mongolia has been strong and highly constructive, 
and there is every reason to be optimistic that we can build on what 
already has been achieved. It would be my great honor, were the Senate 
to confirm my nomination, to pursue that effort. Thus, I thank you for 
considering my nomination, and welcome your questions.


    Senator Gardner. Thank you, Mr. Klecheski.
    Mr. Matthews?

STATEMENT OF HON. MATTHEW JOHN MATTHEWS, OF VIRGINIA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
      OF THE UNITED STATES OF AMERICA TO BRUNEI DARUSSALAM

    Ambassador Matthews. Thank you, Mr. Chairman and Ranking 
Member Markey.
    I am honored to appear before you today as the President's 
nominee to serve as the U.S. Ambassador to Brunei. I appreciate 
the confidence the President and Secretary Pompeo have shown to 
me, and if confirmed, I look forward to working with you to 
advance U.S. interests in Brunei, as we work to foster the 
international rules-based system that supports the sovereignty 
of all nations, large and small, and a commitment to 
partnership to all nations seeking to do the same.
    I am both happy and thankful to be here with my wife, 
Rachel. We have served together through more than 12 postings 
in our 32 years in the Foreign Service. And without her support 
and encouragement, I would not be here today. While my son 
could not make it today, I am grateful that our daughter, 
Kristen, could join us as well.
    Mr. Chairman, the United States and Brunei have enjoyed 
strong and prosperous relations for 150 years--actually, 170 
years, since 1850 when our two countries first signed the Peace 
Treaty of Peace, Friendship, Commerce, and Navigation. Still in 
effect today, the treaty has underpinned our close cooperation. 
More recently, the United States was one of the first countries 
to recognize Brunei's independence from the United Kingdom in 
1984. In the time since, the United States and Brunei have 
worked together to promote, peace, stability, and development 
in the region. And if confirmed, I hope to continue that 
tradition by further strengthening our bilateral relationship.
    In recent years, the United States and Brunei have 
cooperated to address a host of matters important to Southeast 
Asia. Brunei's position as a South China Sea claimant state 
with good relations throughout ASEAN and with others across the 
broader Indo-Pacific region allows Brunei to play a significant 
role in defusing tensions and advancing our interests within 
ASEAN.
    The United States and Brunei have an active and growing 
defense relationship highlighted by regular bilateral and 
multilateral exercises both in Brunei and the wider Indo-
Pacific region. We have three fundamental defense agreements, a 
Defense Memorandum of Understanding, an Access and Cross 
Servicing Agreement to facilitate logistics cooperation, and a 
long-awaited General Security of Military Information Agreement 
signed in July of 2018. This last agreement will help 
facilitate information exchange between our two militaries and 
significantly strengthens our bilateral security relationship.
    Our economic relationship is also on a positive trend. One, 
the United States enjoys a modest annual goods and services 
trade surplus. Brunei generally has very low tariffs, and U.S. 
companies seeking to export to Brunei usually do so freely. If 
confirmed, I would work to expand our bilateral trade 
relationship and would seek to employ the BUILD Act to 
encourage the participation of U.S. firms in Brunei in 
infrastructure projects.
    Our cultural, educational, and people-to-people ties 
continue to grow and define our bilateral relations in new and 
positive ways. Together, these programs highlight a 
multifaceted relationship that is deep and broad, and one that 
is central to both promoting U.S. interests in the region and 
fostering peace and stability that bring economic growth. I 
believe we can and should work hard to expand all these 
exchanges.
    Certainly, there are challenges in the relationship. 
Freedom of expression and freedom of religion and belief, which 
includes the right to change one's religious beliefs, are 
enshrined in the Universal Declaration of Human Rights. We 
regularly communicate with the government of Brunei regarding 
human rights, including religious freedom, and encourage Brunei 
to uphold its international commitments on human rights, 
including for minorities.
    In this context, the United States has serious reservations 
regarding certain provisions of Brunei's Sharia Penal Code. We 
are concerned that it potentially criminalizes aspects of 
freedom of religion and belief.
    I am also concerned about the corporal punishments 
described in the code. While we understand that none of these 
punishments have been carried out, as a signatory to the U.N. 
Convention against Torture, Brunei must ensure that its laws 
prohibit torture or other cruel, inhumane, or degrading 
treatment or punishment. And we must continue to urge Brunei to 
ratify and implement this important international convention as 
soon as possible.
    Despite some challenges, the long-term prognosis for 
strengthening our bilateral relationship with Brunei is 
excellent. Hence, we consider our engagement with the next 
generation of Bruneian youth to be critical, including through 
promoting their participation in the Young Southeast Asian 
Leaders Initiative, or YSEALI. Brunei was instrumental in 
developing the focus of YSEALI, which has now grown to nearly 
130,000 members across Southeast Asia. Through the Fulbright 
U.S.-ASEAN initiative, we are also supporting Bruneian scholars 
and professionals to conduct research at U.S. universities on 
topics of importance to ASEAN and the U.S.
    Mr. Chairman, Ranking Member Markey, thank you for inviting 
me to testify before you today and for giving my nomination 
your serious consideration. I am happy to answer any questions 
you may have.
    [Ambassador Matthews's prepared statement follows:]


            Prepared Statement of Hon. Matthew John Matthews

    Mr. Chairman, and members of the committee; I am honored to appear 
before you today as the President's nominee to serve as the U.S. 
Ambassador to Brunei. I appreciate the confidence the President and 
Secretary Pompeo have shown in me and, if confirmed, I look forward to 
working with you to advance U.S. interests in Brunei as we work to 
foster the international rules based system that supports the 
sovereignty of all nations, large and small, and a commitment of 
partnership to all nations seeking to do the same.I am both happy and 
thankful to be here with my wife Rachel. We have served together 
through more than 12 postings in our 32 years in the Foriegn Service. 
Without her support and encouragement, I wouldn't be here today. While 
my son Daniel could not break away from his commitments at his clinic 
in Bethlehem Pennsylvania, I am greatful that our daughter Kristen 
could join us today along with friends and colleagues from the 
Department of State.
    The United States and Brunei have enjoyed strong and prosperous 
relations since 1850, when our two countries signed the Treaty of 
Peace, Friendship, Commerce, and Navigation. Still in effect today, the 
treaty has underpinned our close cooperation for nearly 170 years. More 
recently, the United States was one of the first countries to recognize 
Brunei's independence from the United Kingdom in 1984. In the time 
since, the United States and Brunei have worked together to promote 
peace, stability, and development in the region, and if confirmed, I 
hope to continue that tradition by further strengthening our bilateral 
relationship.
    Our partnership with Brunei is an integral part of our free and 
open Indo-Pacific Strategy, in which independent nations with diverse 
cultures and different aspirations can prosper side-by-side in freedom 
and in peace. Support for ASEAN centrality, including with Brunei as a 
member of ASEAN, a valued partner, and 2021 ASEAN Chair, remains a 
cornerstone of our Indo-Pacific Strategy.
    Brunei has long been an active and positively engaged participant 
in the region. In recent years, the United States and Brunei have 
cooperated to address a host of matters important to Southeast Asia. 
Brunei's position as a South China Sea claimant state, with good 
relations throughout ASEAN and with others across the broader Indo-
Pacific region, allows Brunei to play a significant role in defusing 
regional tensions and advancing our interests within ASEAN.
    The United States and Brunei have an active and growing defense 
relationship, highlighted by regular Bruneian participation in 
bilateral and multilateral exercises, both in Brunei and the wider 
Indo-Pacific region. We have three fundamental defense agreements: a 
Defense Memorandum of Understanding, an Access and Cross Servicing 
Agreement to facilitate logistics cooperation, and a long-awaited 
General Security of Military Information Agreement signed in July 2018. 
This last agreement will help facilitate information exchange between 
our two militaries and significantly strengthens our bilateral security 
relationship.
    Our economic relationship is also a positive one, and the United 
States enjoys a modest annual goods and services trade surplus with 
Brunei. Brunei generally has very low tariffs, and U.S. companies 
seeking to export to Brunei can usually do so freely. Our positive 
collaboration with our Bruneian colleagues in APEC allows us to promote 
free trade in the region. If confirmed, I would seek to expand our 
bilateral trade relationship and employ the BUILD act to encourage the 
participation of U.S. Firms in Bruneian infrastructure projects.
    Our cultural, educational, and people-to-people ties continue to 
grow and define our bilateral relations in new and positive ways. 
Together, these programs highlight a multifaceted relationship that is 
deep and broad, and one that is central to both promoting U.S. 
interests in the region and fostering the peace and stability that 
bring economic growth. With this in mind, I believe we can and should 
work hard to expand these exchanges.
    Certainly, there are challenges in the relationship. Freedom of 
expression and freedom of religion and belief, which includes the right 
to change one's religious beliefs, are enshrined in the Universal 
Declaration of Human Rights. We regularly communicate with the 
Government of Brunei regarding human rights, including religious 
freedom, and encourage Brunei to uphold its international commitments 
on human rights including for minorities. In this context, the United 
States has serious reservations regarding certain provisions of 
Brunei's Sharia Penal Code. We are concerned that it potentially 
criminalizes aspects of freedom of religion and belief, for example. I 
am also concerned about the corporal punishments described in the Code. 
While we understand that none of these punishments have been carried 
out, as a signatory to the U.N. Convention against Torture, Brunei must 
ensure that its laws prohibit ``torture or other cruel, inhuman or 
degrading treatment or punishment,'' and we must continue to urge 
Brunei to ratify and implement this important international convention.
    Despite some challenges, the long-term prognosis for strengthening 
our bilateral relationship with Brunei is excellent. Hence we consider 
our engagements with the next generations of Bruneian youth to be 
critical, such as through promoting their participation in the Young 
Southeast Asian Leaders Initiative, or YSEALI. Brunei was instrumental 
in developing the focus of YSEALI, which has now grown to nearly 
130,000 members across Southeast Asia. Through the Fulbright U.S.-ASEAN 
initiative, we are also supporting Bruneian scholars and professionals 
to conduct research at U.S. universities on topics of importance to 
ASEAN.
    Mr. Chairman, Ranking Member Markey, and members of the committee, 
thank you for inviting me to testify before you today and for giving my 
nomination your serious consideration. I am happy to answer any 
questions you may have.


    Senator Markey. Thank you, sir, for your testimony.
    Mr. Murphy, please proceed.

STATEMENT OF W. PATRICK MURPHY, OF VERMONT, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  DEPUTY AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE 
      UNITED STATES OF AMERICA TO THE KINGDOM OF CAMBODIA

    Mr. Murphy. Thank you, Chairman Gardner, Ranking Member 
Markey, and members of the committee for considering my 
nomination to be the next United States Ambassador to the 
Kingdom of Cambodia.
    I am grateful to our President and our Secretary of State 
for their confidence.
    I have deep appreciation for the support of my family, part 
and parcel of my entire career, including my wife, Kathleen, 
and daughter Gillian with me here today; my son, Seamus, in 
Richmond, Virginia; and my daughter Meghan, watching from 
Morocco. My mother-in-law, Barbara, is also here today, and my 
folks are supporting from Florida.
    I am thankful to colleagues in the Foreign and Civil 
Services, local employees overseas, and counterparts across our 
interagency and armed services for their collegiality over my 
three decades of public service. If confirmed, I will work very 
closely with Congress to advance U.S. interests in Cambodia, 
promoting democracy, rights, and freedoms, building on the 
strong support the United States enjoys among the Cambodian 
public and strengthening cooperation on our vision for the 
Indo-Pacific.
    Representing my country as a Peace Corps volunteer in West 
Africa and for 26 years as a diplomat has been an honor. I have 
benefited from my upbringing in Vermont, where I was exposed 
early to the value of public service. I have spent much of my 
career in Southeast Asia and, if confirmed, look forward to 
further contributions to this critical part of the world.
    Cambodia is the product of an impressive ancient 
civilization. The tumultuous 20th century, however, proved 
challenging. I started my diplomatic career in 1992, a point of 
inflection for Cambodia, when the U.N. Transitional Authority 
arrived to administer elections made possible by the Paris 
Peace Accords through which Cambodians, the United States, and 
many others negotiated the end to a long and devastating 
conflict.
    I am proud of our work in Cambodia, including partnerships 
with civil society. Today, over 85 percent of Cambodia's people 
are above the poverty line and enjoy a growing economy. With 
help through USAID and other U.S. programs, Cambodia has 
achieved nearly universal primary education, decreased maternal 
mortality, and served as a model for tackling HIV-AIDS.
    The United States has been a leading donor in helping 
Cambodians address painful legacies via efforts aimed at 
demining and achieving justice and accountability. If 
confirmed, I will continue these efforts and strengthen our 
work with partners to end trafficking in persons.
    In recent years, regrettably, there has been backsliding in 
governance, rule of law, and corruption. This administration 
has been clear in our concern that recent national elections 
fell short, in part because of the dissolution of the main 
opposition party, jailing of its leader, Kem Sokha, and banning 
of others. If confirmed, I will advocate strongly for 
reconciliation, adherence to the principles enshrined in 
Cambodia's constitution, and efforts to protect the country's 
sovereignty.
    Our Cambodian-American community has contributed to the 
home States of the distinguished Senators, as well as to the 
bilateral relationship. I would like to grow connections 
between Pueblo and Phnom Penh, Boston and Battambang by 
increasing International Visitor Leadership Program and other 
exchanges, and sustaining a Peace Corps program through which 
hundreds of Americans have contributed to Cambodia's 
development and mutual understanding.
    If confirmed, I would seek to balance and increase our $3.5 
billion in annual two-way trade by promoting U.S. business 
interests, Cambodian adherence to international labor 
standards, and a leveling of the field for U.S. investors and 
workers.
    I also commit to working steadfastly for the fullest 
possible accounting of U.S. personnel missing from the 
Indochina conflict period. This is our solemn obligation, a 
foundational area of cooperation, and an issue close to my 
heart.
    My family, like many, lost a loved one in service during 
the Vietnam War, and I understand the profound need to account 
for our personnel. If confirmed, I will work closely with our 
Defense POW/MIA Accounting Agency and American families to keep 
this humanitarian issue at the forefront of our Cambodia 
policy.
    Our U.S. agencies and staff in Phnom Penh are world-class. 
And if confirmed, I will count myself truly fortunate to lead 
them. I will make their security and that of their families and 
all Americans in Cambodia a top priority and dedicate myself to 
facilitate our collective efforts to advance U.S. interests.
    Thank you, members of the committee, for your consideration 
of my nomination. I look forward to your questions.
    [Mr. Murphy's prepared statement follows:]


                Prepared Statement of W. Patrick Murphy

    Thank you Mr. Chairman, Ranking Member, and members of the 
committee for considering my nomination to be the next United States 
Ambassador to the Kingdom of Cambodia. I am grateful to our President 
and Secretary of State for their confidence. I have deep appreciation 
for the support of my family, part and parcel of my career, including 
my wife Kathleen and daughter Gillian with me here today; my son Seamus 
in Richmond, Virginia; and my daughter Meghan watching from Morocco. I 
am thankful to colleagues in the Foreign and Civil Services; local 
employees overseas; and counterparts across our interagency and armed 
services for their collegiality over my three decades of public 
service.
    If confirmed, I will work closely with Congress to advance U.S. 
interests in Cambodia, promoting democracy, human rights, and 
fundamental freedoms; building on the strong support the United States 
enjoys among the Cambodian public; and strengthening cooperation on our 
vision for the Indo-Pacific.
    Representing my country, as a Peace Corps volunteer in West Africa 
and for 26 years as a diplomat, has been an honor. I benefitted from my 
upbringing in Vermont, where I was exposed to the value of public 
service. I have spent much of my career on Southeast Asia and, if 
confirmed, look forward to further contributions in this critical part 
of the world.
    Cambodia is the product of an impressive ancient civilization, 
admired throughout the world. The tumultuous 20th century, however, 
proved challenging. I started my diplomatic career in 1992, a point of 
inflection for Cambodia when the U.N. Transitional Authority arrived to 
administer elections, made possible by the Paris Peace Accords, through 
which Cambodians, the United States, and others negotiated the end to a 
long and devastating conflict.
    I am proud of our work in Cambodia, including partnerships with 
civil society. Today, over 85 percent of Cambodia's people are above 
the poverty line and enjoy a growing economy. With help through USAID 
and other U.S. programs, Cambodia has achieved nearly universal primary 
education, decreased maternal mortality, and served as a model for 
tackling HIV/AIDS. The United States has been a leading donor in 
helping Cambodians address painful legacies via efforts aimed at 
demining and achieving justice and accountability. If confirmed, I will 
continue these, and strengthen our work with partners to end 
trafficking in persons.
    In recent years, regrettably, there has been backsliding in 
governance, rule of law, and corruption. The administration has been 
clear in our concern that recent national elections fell short, in part 
because of the dissolution of the main opposition party; jailing of its 
leader, Kem Sokha; and banning of others. If confirmed, I will advocate 
for reconciliation, adherence to the principles enshrined in Cambodia's 
constitution, and efforts to protect the country's sovereignty.
    Our Cambodian-American community has contributed to the home states 
of the distinguished Senators, as well as to the bilateral 
relationship. I would like to grow connections between Pueblo and Phnom 
Penh, and Boston and Battambang by increasing International Visitor 
Leadership Program and other exchanges, and sustaining a Peace Corps 
program through which hundreds of Americans have contributed to 
Cambodia's development and mutual understanding.
    If confirmed, I would seek to balance and increase our $3.5 billion 
in annual two-way trade by promoting U.S. business interests, Cambodian 
adherence to international labor standards, and leveling the field for 
U.S. investors and workers.
    I also commit to working steadfastly for the fullest possible 
accounting of U.S. personnel missing from the Indochina conflict 
period. This is our solemn obligation, a foundational area of 
cooperation, and an issue close to my heart. My family, like many, lost 
a loved one in service during the Vietnam War and I understand the 
profound need to account for our personnel. If confirmed, I will work 
closely with our Defense POW/MIA Accounting Agency and American 
families to keep this humanitarian issue at the forefront of our 
Cambodia policy.
    Our U.S. Mission agencies and staff in Phnom Penh are world class, 
and if confirmed I will count myself truly fortunate to lead them. I 
will make their security, and that of their families and all Americans 
in Cambodia, a top priority and dedicate myself to facilitate our 
collective efforts to advance U.S. interests.
    Thank you, members of the committee, for your consideration of my 
nomination. I look forward to your questions.


    Senator Gardner. Thank you, Secretary Murphy, and who is 
watching from Morocco?
    Mr. Murphy. My daughter Meghan is there studying, taking a 
gap year, Senator, studying Arabic for the year before she 
starts university.
    Senator Gardner. Well, it is a little bit of a different 
time zone. So thank you very much. She is doing a great job. So 
you are going a great job. Thank you.
    Mr. Murphy. Much appreciated. We appreciate her support, 
too.
    Senator Gardner. Thank you very much.
    Mr. Klecheski, actually, Ambassador Matthews, Secretary 
Murphy, I am going to start with just a question for all three 
of you. Senator Markey and I have worked on a bill called the 
Asia Reassurance Initiative Act, ARIA. ARIA is built around 
three sort of pillars--economic pillar, security pillar, rule 
of law.
    Provides funding for an Asia-Pacific Security Initiative, 
$1.5 billion authorization for 5 years every year to help 
counterterrorism training, military capacity-building, those 
kinds of things. Economy, talks about the promotion of 
bilateral, multilateral trade engagement opportunities. Again, 
capacity-building for additional trade in the countries that 
you will be serving and the countries you are serving with 
today. And then, of course, rule of law and democracy, provides 
additional funding to help address issues like human rights, 
civil society, and what we can do to engage that voice of 
America with and throughout the region.
    So I will just start with you, Mr. Klecheski. A bill that 
is built upon the premise of reestablishing--not 
reestablishing, excuse me, but bolstering U.S. presence in the 
region, what does it mean to you, and how could you use the 
tools of a bill like ARIA?
    Mr. Klecheski. Thank you for the question, Senator.
    Indeed, there has been a lot of programming with regard to 
Mongolia to support its independence, strengthen its human 
rights, improve its governance, but there is a lot more to be 
done, and that is particularly true at a time when China and 
Russia, the two large neighbors of Mongolia, are seeking to 
increase their influence in a country where they already have 
significant influence.
    So having more resources across a wide range of areas, and 
I mentioned some of those in my statement, would be extremely 
useful in terms of reasserting the commitment of the United 
States. A commitment that I think is well understood, but 
nonetheless is worthy of reassertion and reinforcement, shall 
we say, in a country like Mongolia at this very critical 
moment.
    So we would certainly welcome those kinds of resources. And 
that kind of statement of support, I think, is equally 
important across the wide range of issues that you raised and 
some of which I mentioned in my own comments.
    Thank you, Senator.
    Senator Gardner. Ambassador Matthews?
    Ambassador Matthews. Mr. Chairman--excuse me, Mr. Chairman, 
as I mentioned earlier, there is--we have very substantial 
military-to-military ties with Brunei. But I think since the 
recent incidents in Marawi, there has been a significant uptick 
in interest on the part of Brunei, particularly in 
counterterrorism training, and we hope to be able to continue 
to expand working with Brunei on that.
    When it comes to rule of law, again, the interests that we 
have in the South China Sea, I think, are consonant with those 
of Brunei. We respect their sovereignty. We respect the rights 
of all claimants to be able to resolve their issues and their 
overlapping claims in a peaceful way, consistent with 
international law, and I think ARIA can be helpful in 
supporting programs that help emphasize how to go about doing 
that.
    Senator Gardner. Thank you.
    Secretary Murphy?
    Mr. Murphy. Thank you very much, Senator Gardner.
    And I want say at the outset how much we appreciate the 
acts of Congress on the Indo-Pacific, not just on the Asia 
initiative that you cite, but the BUILD Act, doubling the 
financing available from $30 billion to $60 billion, increasing 
flexibility with political risk insurance and equity lending. 
This will make a big difference in the region, but your 
messaging, in particular on the rule of law and governance, has 
been heard resoundingly.
    Cambodia is a country that has made a lot of progress in 
recent decades, remarkable, recovering from a period of utter 
devastation. And they have a lot to show for it in terms of 
their economic growth, the space for civil society, and indeed, 
a constitution that provides a multiparty democracy. The 
elections that they held in 2017 were quite remarkable.
    That all, however, has deteriorated with elections this 
year at the national level. And hearing the strong voice from 
Congress helps us considerably, and if confirmed, it is a 
message I bring. The United States is quite unified. We would 
like to see a reversal in Cambodia of this deterioration for 
Cambodia to resume its place of political growth and expansion, 
and the merits that have been benefitted to the public of 
Cambodia.
    Senator Gardner. Thank you.
    And Mr. Klecheski, to all of you again, whether it is 
Mongolia, Brunei, or Cambodia, what more can we be doing to 
assure our allies throughout the region that they no longer 
simply have to turn to China for economic or security 
opportunities? You mentioned the BUILD Act, we mentioned ARIA, 
but how else can we develop stronger opportunities to work with 
them economically as well?
    Mr. Klecheski. Thank you, Senator.
    Indeed, reinforcing that message is very important. And 
some of the issues we have already mentioned are important. I 
would say in the case of Mongolia, the MCC is a very important 
symbol. It is important economically for a country that--whose 
capital is really struggling with a fundamental issue, which is 
the availability and quality of water.
    But it is much more than that. MCC, as you well know, sir, 
also involves a great deal of governance training, and that is 
important in terms of economic influence as well because strong 
governance plays very much into the hands of the U.S. rather 
than some other countries. So, in that regard, that is one area 
where we will be doing more.
    But rule of law, I would say, and governance are very 
important issues with regard to the economy. There is much more 
that can be done.
    Senator Gardner. Thank you, Mr. Klecheski.
    And I am out of time, but I would just say this, we talked 
about it in the office. If you buy a Caterpillar tractor in 
Mongolia, you do not necessarily refer to it as a Caterpillar, 
you call it a Wagner. They call it a Wagner because the of 
Wagner company headquartered out of Denver, Colorado, that has 
a lot of employees there. So we are excited about the 
relationship, economic relationship that Colorado has with 
Mongolia.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Murphy, I am particularly concerned with the attacks on 
all independent voices, but especially the free press, since 
most Cambodia media is under the control of Hun Sen, his 
family, and the ruling party. How would you use your role as 
Ambassador to reiterate America's strong interest in 
maintaining a free press amid a crackdown that has included the 
shuttering of the Cambodia Daily, Radio Free Asia's Phnom Penh 
Bureau, the band of FM radio stations carrying Radio Free Asia 
and Voice of America, and the jailing of independent 
journalists, including two former RFA reporters?
    Mr. Murphy. Senator, first, I want to share the concerns 
that you express. I have the same concerns, as does the 
administration, and we have made that clear.
    I think we have reason to be encouraged because Cambodia in 
the past has demonstrated there is room for a free press and a 
vibrant civil society. The backsliding that has occurred over 
the last year and a half is incredibly disappointing and 
unnecessary. Cambodia can be, and it has demonstrated it can 
be, a multiparty democracy. If I am confirmed, I will bring the 
strong message of Congress and the administration, work with 
all stakeholders, including civil society, other partners, 
international organizations, to strongly urge the authorities 
to resume and expand the space for media.
    You are absolutely correct in citing the closing down of 
the Cambodia Daily, the restrictions on Voice of America, and 
Radio Free Asia broadcast, but also let me add that the 
Cambodian government invited out of the country the National 
Democratic Institute. NDI had worked successfully for over 20 
years in the country. That was an unnecessary step. We would 
like to see those steps reversed.
    Senator Markey. Now, let me ask you about the sanctions on 
Hun Sen and his regime. Have we exhausted targeted sanctions? 
Should we examine further steps such as reevaluating the U.S. 
provision of Generalized System of Preferences benefits to 
Cambodia?
    Mr. Murphy. Thank you, Senator.
    Citing the backsliding, again, the administration responded 
to the concerns about the diminished space for democracy and 
civil society by imposing visa restrictions. Those apply to 
individuals who have contributed to backsliding and the closing 
of space and on one occasion have been expanded. That is an 
authority the Secretary of State has. We continue to watch that 
and would consider expanding that tool further.
    You cite GSP trade benefits. Cambodia is a big beneficiary. 
That has provided employment for many Cambodians, particularly 
women, I would note, and helped the economy. We think, in fact, 
that trade and expanding that $3.5 billion in two-way trade can 
help create more opportunities, including for civil society. 
But we are not alone on this. We are working with--for example, 
our European friends are closely scrutinizing what they call 
Everything But Arms, the equivalent of their trade benefits, 
and that is under review now. We will continue to look at all 
tools available to us, sir.
    Senator Markey. I would urge you to closely examine that as 
an additional tool, which you can use in order to put pressure 
on this government.
    In your current role as a senior official at the East Asia 
Bureau at the State Department, you helped oversee the U.S. 
policy response to the humanitarian crisis in Burma and the 
Burmese military assault against the Rohingya. I am deeply 
concerned by the fact that the crisis continues one year after 
the attacks with nearly 1 million Rohingya in refugee camps in 
Bangladesh, and there appears to be no solution to allow for 
the safe and voluntary return of the Rohingya back to Rakhine 
State.
    Yesterday, the legal firm that the State Department worked 
with to investigate the 2017 attacks produced its full report. 
In it, the investigator said that based on the evidence, there 
are reasonable grounds to believe that crimes against humanity, 
genocide, and war crimes have been committed against the 
Rohingya. The State Department had access to this data in the 
production of its own report on the atrocities committed in 
Rakhine State, yet we are still waiting for a final 
determination from the Secretary of State on how to categorize 
these attacks.
    Do you have any idea why Secretary Pompeo has not made a 
determination of the violence committed against the Rohingya? 
Based on the evidence we now have, do you believe the violence 
committed against the Rohingya was ethnic cleansing, crimes 
against humanity, or genocide?
    Mr. Murphy. Senator, we share the profound concerns of you 
and many of your colleagues here in the U.S. Senate and in 
Congress about the humanitarian disaster in Rakhine State. The 
treatment of the Rohingya has been appalling and it has been 
the case for many decades. I was with Vice President Pence just 
a few weeks ago in Singapore when he met with state counselor 
Aung San Suu Kyi and made it clear that the abuses inflicted on 
the Rohingya people are unacceptable and without excuse.
    Our Secretary of State has made a determination that ethnic 
cleansing took place. We continue to review all information 
available, and the finding of ethnic cleansing does not 
preclude further determinations. However, the body of 
information available does keep us squarely in pursuit of 
accountability for those abuses.
    Also, efforts to meet the humanitarian needs of the 
Rohingya people. Close to 1 million have sought refuge in 
Bangladesh, neighboring Bangladesh, and have many needs. We are 
proud to be the leading donor.
    But on the accountability, we have taken many actions. We 
have, using the tools provided to us by Congress--specifically, 
the Global Magnitsky Act--we have sanctioned seven individuals 
and entities. We have supported the U.N. Fact-Finding Mission. 
We have supported the U.N. Special Rapporteur for Human Rights 
in Myanmar, and we are continuing to support the U.N. Secretary 
General's special envoy on improving relations between Burma 
and the United Nations organizations. We are in full pursuit, 
sir, of accountability for egregious human rights abuses. That 
is clear.
    Senator Markey. Well, in my opinion, you cannot be too 
tough on Burma. You cannot hit them hard enough. You cannot 
call them out enough. So that is my view. It is just an 
absolute atrocity. It must end.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Senator Rubio?
    Senator Rubio. Thank you.
    Mr. Murphy, you were--in your role at the time in the State 
Department--your role on October of 2016, you were in the 
bureau that oversaw East Asia. This was part--Myanmar, Burma 
was part of your portfolio. Is that an accurate assessment?
    Mr. Murphy. Senator, I was in a different capacity than I 
am in now, but Burma was among the countries.
    Senator Rubio. Were you at that time the Principal Deputy 
Assistant Secretary for EAP?
    Mr. Murphy. I was not. I was the Deputy Assistant 
Secretary.
    Senator Rubio. Okay. Right. Principal Deputy Assistant or 
just--irrespective, you were in that bureau. Let me ask you, 
what was your position at that time regarding imposing targeted 
sanctions on Burma and Burmese officials in the wake of the 
violence that took place in 2016?
    Mr. Murphy. In 2016, sir, I was the Deputy Assistant 
Secretary of State for Southeast Asia. And I had an 
opportunity, in fact, to travel to Burma at that time and have 
made subsequent visits as well. The attacks that you are 
talking about and the violence did occur in 2016, again at much 
greater scale in 2017. This is not new. The Rohingya population 
has been, in my view, one of the most repressed, discriminated 
against populations anywhere in the world. And we have worked 
for decades on trying to protect their rights, help them 
achieve fundamental rights denied them, including the ability 
to----
    Senator Rubio. Mr. Murphy, I do not mean to be rude because 
I will run out of time. I just wanted to know what was your 
position? There was an internal debate within the 
administration, it has been documented, between those in the 
human rights department and those overseeing our diplomatic 
efforts. Can you tell us what your position was with regards to 
recommendations on whether or not to impose targeted sanctions 
on senior military leaders responsible for the abuses in 2016?
    Mr. Murphy. Senator, I think, you might be referring to 
2017 when the attacks took place in August committed by a so-
called entity called ARSA against security forces, and the 
disproportionate response began the series of abuses that led 
to exodus. I have been a very firm supporter, sir----
    Senator Rubio. I am referring to the October 2016 violence, 
which was the first initial wave--in October of 2016. You are 
familiar with that wave of violence?
    Mr. Murphy. Yes, Senator, I am.
    Senator Rubio. And at that time, were you engaged or not in 
the internal debate about whether or not to impose sanctions on 
Burmese military leaders?
    Mr. Murphy. I have been part of our internal deliberations 
in response to these attacks for the past few years.
    Senator Rubio. Yes. So is it possible for you to tell us on 
which side of that debate were you on? We all are aware, and it 
has been documented extensively by former officials of the 
previous administration, there was an internal conversation 
about whether or not to sanction senior Burmese officials or 
not, given sort of the progress that was allegedly being made 
on democracy. Can you share with us your position was at the 
time or your view of it was at the time regarding sanctions on 
senior Burmese military officials?
    Mr. Murphy. Senator, if I could, I think the deliberations 
are a constant theme of the shaping of foreign policy, and I am 
not really in a position to reveal individual positions. But 
the results are incrediblely important. We have sanctioned, 
under the Global Magnitsky Act, seven individuals and entities. 
I am fully supportive of those results, and I am fully 
supportive of ongoing efforts to achieve accountability for the 
egregious abuses that have been inflicted on the Rohingya 
people.
    Senator Rubio. So, just so I can be clear, you do not feel 
you can tell us what you were arguing for at the time because 
those were internal deliberations?
    Mr. Murphy. Well, Senator, I am incredibly supportive of 
our ability to use the tools provided to us by Congress, 
including identifying individuals responsible for abuses and 
atrocities.
    Senator Rubio. I know. But I want to go back to--I do not 
want to belabor the point, but I just want to know if I can get 
an answer or not on this particular point? In the aftermath of 
the violence in October of 2016, there was, we know, an 
internal debate within State Department among different 
factions or groups about whether or not there should be 
sanctions against military officials in Burma responsible for 
this. And there was one camp that was saying, no, because we 
were making progress on democratization, we do not want to slow 
that down, and another group that was arguing human rights need 
to take precedence.
    And my question is, were you involved in that debate? I 
think you told us you were involved in all the deliberations 
regarding Burma. And what at that time was your position, not 
hindsight, but at that time? And I understand if you feel like 
you cannot tell us what your position was because it was an 
internal deliberation. That is fine. I just need--I just want 
that question answered one way or the other.
    Mr. Murphy. Sir, at no time have I been opposed to the use 
of any of the tools available to us----
    Senator Rubio. Okay.
    Mr. Murphy [continuing]. Sanctions or restrictions.
    Senator Rubio. So, at no time did you oppose 
recommendations from within State and from outside human rights 
organizations to impose targeted sanctions on senior Burmese 
military officials? That is accurate?
    Mr. Murphy. That is correct.
    Senator Rubio. Okay. That was the question I wanted to get 
an answer for. Thank you.
    Senator Gardner. Thank you, Senator Rubio.
    And I think part of our--the trouble we have had, of 
course, over Burma in the past couple of years is the responses 
during the previous administration where sanctions were lifted, 
I think mistakenly so. And there are a few that remain in 
place, but despite evidence that there were conflicts, 
continuing violence being committed within the country, there 
were efforts taken and sanctions relief given prematurely, in 
my opinion. And I think is it safe to say that you supported 
the toughest sanctions possible at the direction of the 
Secretary at the time?
    Mr. Murphy. Senator Gardner, I think it is important to 
call it like it is. It is not business as usual with Burma. We 
still enact the JADE Act that Congress provided us the tools, 
restrictions on assistance, and engagement with the military, 
the Tatmadaw, the armed forces of Burma. The sanctions relief 
that you refer to----
    Senator Gardner. I will remind you, too, though, in the 
Defense Authorization Act we actually reversed some language 
that was written in the Defense Authorization Act that would 
have allowed further military engagement. That language came 
from somewhere. So I think that is concern we have.
    Mr. Murphy. Yes, sir. Referring to the sanctions relief of 
several years ago, it was the request of the civilian-elected 
government in Burma, the first elected government in nearly 50 
years and the opinion of that government that sanctions had run 
their course. That does not dictate our policy, but that was an 
important contribution to our deliberations on how to help--how 
to help this country transition from authoritarian rule to 
civilian elected government. It is an ongoing transition, 
predictably an incredibly bumpy one, but it is one that we need 
to see succeed for our national interest and for the interest 
of all 60 million Burmese people.
    Senator Gardner. There is no doubt we need it to succeed. 
That is absolutely right. But I think we also have to make sure 
that U.S. values are represented, that we do not prematurely 
end sanctions when the objectives of our country have clearly 
not been achieved. And I think that was the case that we were 
worried about several years ago when these sanctions were 
lifted.
    Mr. Klecheski, quick question. Mongolia and North Korea, 
what more should we be doing to make sure Mongolia is engaging 
North Korea in a productive matter toward denuclearization?
    Mr. Klecheski. This is, indeed, an important question, Mr. 
Senator. So, Mongolia has made a clear commitment to the U.N. 
Security Council resolutions. To the best of our knowledge, 
they have been implementing those. At the same time, Mongolia 
does have a relationship with North Korea, partly because of 
its communist past and because of a desire to continue that. So 
we should continue, as we have been doing, maintaining the 
pressure and highlighting to DPRK the long-term commitment that 
all, the entire community has for denuclearization.
    In other words, it is a goal that we all share. And in his 
recent visit here, the Prime Minister of Mongolia, again, 
reiterated that commitment and highlight regularly in 
diplomatic discussions the importance of the kind of maximum 
pressure campaign that we have been pursuing.
    Thank you, sir.
    Senator Gardner. Thank you.
    Senator Markey?
    Senator Markey. Quickly, Mr. Murphy, on the demining 
efforts in Cambodia, there is a goal of meeting it by 2025. It 
looks dubious that this goal can be met. What else can we do to 
make sure that that legacy--the United States' relationship 
with Cambodia--is dealt with to telescope the timeframe it is 
going to take to remove those mines?
    Mr. Murphy. I appreciate the question, Senator. The country 
was incredibly heavily mined over many years of conflict, 
conflict internally to Cambodia, conflict with neighbors. And 
indeed, Cambodia was caught up in the Indochina, the broader 
Indochina conflict. We have been a proud donor working with 
civil society and other partners inside the country and 
international partners to help that country address its serious 
mining issue.
    Senator Markey. Do you have specific steps that you would 
recommend to us right now?
    Mr. Murphy. I would, sir. I think it merits continued U.S. 
support. We are not the only donor. We want to leverage that to 
encourage other donors to contribute and, indeed, entities with 
inside Cambodia. But I think congressional support for demining 
is in the interest of the United States.
    Senator Markey. So, would you support increasing the 
funding in order to give the U.S. more leverage to get other 
countries to increase their support?
    Mr. Murphy. Well, I am very cautious when it comes to 
asking Congress for funding. I think we have broader 
administration policy to approach you with priorities squarely 
lined up. But I can say this, U.S. funding has been 
instrumental in that country and puts us in a position as a 
leading donor. And it has saved countless lives, including 
among vulnerable populations like women and children.
    Senator Markey. And one final question for you, Mr. 
Matthews. In Brunei, the government has a dismal record 
regarding the treatment of the LGBT community. What would you 
recommend that we do to encourage them to be fairer in their 
treatment of that population?
    Ambassador Matthews. Thank you, Senator, for that question.
    We, of course, consistently support fair and equal 
treatment for all citizens of all countries, and we will 
continue to ensure that that is a position that we clearly----
    Senator Markey. Yes. So homosexuality is illegal in 
Brunei----
    Ambassador Matthews. It is.
    Senator Markey [continuing]. And punishable by death. What 
would you recommend that we do in Brunei specifically?
    Ambassador Matthews. So, in Brunei in particular, we need 
to ensure that Brunei is--we are encouraging Brunei to ensure 
that it meets all the requirements of the U.N. Declaration of 
Human Rights. We need to ensure that they follow up and follow 
through on the initial steps that they took when they signed.
    Senator Markey. And that would mean not making 
homosexuality illegal? Is that the position you would take?
    Ambassador Matthews. That is correct.
    Senator Markey. And that it should not be punishable by 
death? Would that be the position you would bring?
    Ambassador Matthews. Absolutely. That is absolutely the 
case.
    Senator Markey. I think that is very important. I think it 
is a very important human rights message and should be 
encouraged using whatever means possible.
    Thank you, Mr. Chairman.
    Senator Gardner. Senator Rubio?
    Senator Rubio. Thank you, and I will be brief.
    Back to Mr. Murphy, I just want you to explain kind of my 
line of questioning. We see it now even with the Saudi Arabia 
situation, there is always a tension between respect and 
defense of human rights and geopolitical reality. It is a 
constant balancing act.
    In the case of Myanmar, Burma the previous administration 
made a decision that engagement would lead to democratic 
opening, and there were steps in that direction. And there was 
an argument that anything that disrupted that would be 
problematic because, in the end, finding a more open space for 
the vast majority of the population was better than nothing at 
all.
    Embedded in it, of course, this is a country that already 
has very significant ethnic divisions to begin with. And in the 
case of the Rohingya, frankly, they are hated by every sector 
of power there and sort of in a way that makes no sense in my 
mind and is certainly evil. But nonetheless, it manifested 
itself in this horrifying atrocity. From my perspective, when 
someone, Ambassadors--particularly in countries such as these--
have a very important role to play, and what they speak out in 
and what they say, it sets the tone and, in many ways, sets 
policy by their willingness to step forward.
    And we have seen in the past how courageous Ambassadors 
have been able to set the tone at key moments within a country, 
which is why I ask this. It is important for me to know about 
nominees, how they balance these two realities. We do have to 
have realism in foreign policy, but we also have in infuse it 
with human rights, which I believe, frankly, is in our 
pragmatic interest, not to mention our moral interest, which is 
why to me it is so important.
    I recognize what the previous administration's decision 
was. I hope that in hindsight some would reconsider whether 
there were some strategic mistakes made. And I do not hold the 
current administration blameless in that front. There is yet to 
be a determination made.
    Yesterday, and I think Senator Markey alluded to this 
already, the Public International Law and Policy Group, they 
said with regard to the crime of genocide, this report 
concludes that there are reasonable grounds to believe that 
genocide was committed against the Rohingya. The U.S. Holocaust 
Memorial Museum published a statement yesterday that they 
believe there is compelling evidence that the Burmese military 
committed ethnic cleansing, crimes against humanity, and 
genocide against the Rohingya.
    So, increasing number of groups have looked at the fact 
patterns that the State Department has available to them as 
well and concluded that genocide has been committed. And I 
understand that that term, that terminology triggers all sorts 
of legal requirements and the like on international forums. But 
nonetheless, there has to be a decision made.
    So my question--I am not even asking you what the 
recommendation is. I just want to know has EAP made a 
recommendation to the Secretary on a determination with regards 
to genocide or the crimes committed? I am not asking you to 
tell me what the recommendation is. I just--because I 
understand that is an internal deliberation. Could you tell us 
if a recommendation has been made, or do you know if a 
recommendation has been made?
    Mr. Murphy. Senator, first, I appreciate the attention you 
give to human rights and, I think more broadly, democracy. I 
share that need to prioritize these issues. It has defined my 
entire career. I lived in Burma a decade and a half ago under 
that country's military rule. And the Burmese people and the 
United States does not want to see a return to that kind of 
authoritarian governance situation.
    With regards to what we call the atrocities that have taken 
place inside Rakhine State, I noted the determination that 
ethnic cleansing occurred. And we are in hot pursuit of full 
accountability for those abuses and atrocities. That does not 
preclude other determinations that are available for a 
Secretary of State, for example, crimes against humanity or 
genocide.
    We continue to gather all the information. The report that 
you cite feeds into that body of information about what 
transpired, and where and when, inside Rakhine State. We will 
continue to avail ourselves of those tools and those 
possibilities going forward.
    Senator Rubio. But the specific question about whether a 
recommendation has been made, is that something you cannot 
answer, if a recommendation has been made to the Secretary on a 
determination yet? Again, I am not asking for what the 
recommendation is, just whether one has been made or not?
    Mr. Murphy. Sir, I think I am in a best position to tell 
you that there are robust deliberations and discussions inside 
the State Department with other agencies to help shape and 
inform our policies, make these determinations. Nothing has 
been ruled out about future determinations. We are solid in the 
fact that ethnic cleansing took place, which is no small 
matter. And it allows us to remain very, very firm in pursuit 
of full accountability, working with our partners, U.N. 
agencies, stakeholders inside the country.
    Senator Markey. If I may just follow up, Mr. Chairman? I 
just want to follow up on Senator Rubio because I do agree with 
him very strongly that it is important to know whether this 
administration thinks it is ethnic cleansing, is it a crime 
against humanity, or is it genocide? And what is the plan this 
administration has to release that determination? A lot of the 
policy that we have in our country--and the way the rest of the 
world is going to view this government in Burma is going to 
depend upon the judgment that is made.
    So, it has not been made, and I agree with Senator Rubio 
very strongly that this is very important determination. I feel 
strongly that it is genocide, but to the extent to which this 
administration must speak, Secretary Pompeo is repeating what 
Secretary Tillerson said about ethnic cleansing. But I think 
the plan is actually something that goes beyond that, and I 
just would like to echo the thought of Senator Rubio.
    Senator Gardner. Yes, I am going to go out on a limb here 
and suggest that the question Senator Rubio asked was not 
answered, and I would just encourage you in the coming days to 
answer the question. It is a pretty clear question. The 
question is, if you were in a capacity in your previous role to 
make a recommendation to the Secretary about violence and 
actions, activities against the Rohingya in Burma, whether that 
is ethnic cleansing, whether that is genocide, and what 
recommendations you have made to the Secretary in how to 
respond to that. Is that correct?
    Senator Rubio. It is. And look, I, on the one hand, 
appreciate the idea that if you work someplace and you have 
made recommendations, but there has not been a final decision 
made, to announce that publicly at a forum ties the hands of 
the Secretary. So I respect that part. That is why I did not 
ask what the recommendation was.
    On the other hand, when a decision is made, assuming, for 
example, that they decide not to determine it is genocide, they 
are going to say it was based on the advice of professional 
staff who looked at it.
    So, I just want to know whether or not a recommendation has 
been made. And perhaps you are in a position to need to go back 
and get clearance to tell us the answer to that, since you are 
currently employed there now and have been involved in that and 
have not been authorized to potentially say that.
    The bottom line is this--part of our role is oversight over 
the State Department. And I understand that realism has an 
important role to play in our politics. It is just--you know, 
the world is a dangerous place with a lot of bad actors in it. 
But I do believe so does human rights. And in many cases, we 
are just playing games with names here and words and titles for 
what we want to call it. Ethnic cleansing is genocide. It is 
just the legal terminology that triggers actions that perhaps 
some do not want to take in the broader geopolitical 
perspective.
    I would like to just know whether a recommendation has been 
made or not, not what the recommendation is. We will find out 
soon enough.
    Senator Markey. And again, if I may, Cambodia suffered a 
genocide, and that is what this hearing is really about. It is 
about the history, but also the future, how you deal with the 
consequences of that. And I think the more quickly we come to 
grips with it and name it for what it is, the more quickly we 
put in place policies that we can look back on and be proud 
that we took the strongest possible steps.
    Senator Gardner. Secretary Murphy?
    Mr. Murphy. Thank you very much, Senators.
    First, I just want to share the concerns about the 
atrocities and human rights abuses committed in Rakhine State. 
We fully concur with those concerns and pursue accountability.
    Distinguished Senators, a year ago or so, I had the 
opportunity to testify at a hearing before this full committee 
on the situation in Rakhine State. There were many members 
pressing for a determination on ethnic cleansing. At that time, 
I was in a similar position. I was not able to reveal 
deliberations and the path to a determination because of the 
process involved.
    That determination was subsequently made--ethnic cleansing. 
I am now in a position to say we fully supported that across 
our building, including within the East Asian and Pacific 
Bureau.
    I hope you will be fair to me now with regards to any 
subsequent determinations. Those are not ruled out. Inside our 
department, we have many experts. Many more, far more versed on 
the legal aspects with regards to a determination of crimes 
against humanity or genocide.
    Those deliberations continue. And I think, Senator Rubio, 
you are correct. We do not want to tie the hands of our 
Secretary of State. He needs the ability to hear all 
information, explore all information. We will continue to 
gather facts as they become available.
    Remember, Rakhine State is a part of that country largely 
off limits to humanitarian assistance and international media. 
We are pressing for that kind of access. We take onboard all 
the reports available, and we will pursue regardless of where 
determinations go. The fact that ethnic cleansing has taken 
place, we have made that determination, that is incredibly 
serious. We know abuses took place and atrocities, and we will 
not stop until we achieve accountability. We will pursue all 
efforts.
    Senator Gardner. Secretary Murphy, I just want to encourage 
you to continue your conversations with Senator Rubio until he 
gets an answer that he can work with.
    Senator Rubio. If I may, Mr. Chairman, just to point out 
the idea that that part of the country is off limits to 
humanitarian assistance, aid, and human rights observers is 
pretty clear evidence that there is something going on there. 
It reminds me of why Saudis did not want to give the Turks 
access to their consulate for a number of days until the 
cleaning crew got there. It is--that alone is pretty indicative 
of----
    Senator Gardner. And Secretary Murphy, remind me, you, 
yourself, were denied access to Rakhine when you visited 
several years back. Is that correct?
    Mr. Murphy. No, sir. I did have access.
    Senator Gardner. Where were you denied?
    Mr. Murphy. I went to Sittwe, the capital of Rakhine State 
and the environs. In past decades, I have been able to visit 
Northern Rakhine State, where I could see firsthand almost 20 
years ago----
    Senator Gardner. You were denied access in certain areas, 
though, correct, your visit several years ago?
    Mr. Murphy. No, sir, not me personally.
    Senator Gardner. Okay.
    Mr. Murphy. I did access refugee camps in the vicinity of 
Sittwe in Rakhine State. At that time, those were our requests.
    Senator Gardner. Yes.
    Senator Rubio. Was that after 2016?
    Mr. Murphy. Yes, sir.
    Senator Rubio. When was the last time you had access to the 
area?
    Mr. Murphy. In 2017, roughly October 2017.
    Senator Gardner. And you were not denied? For whatever 
reason, I apologize if I had that wrong. I was under--thinking 
that you were denied access. I am sorry if that is incorrect.
    Mr. Murphy. No, sir. That is not correct. There may have 
been some media reports that speculated that at the time, but 
we were not denied where we made the request to go.
    Now I want to clarify, Senator, there has been humanitarian 
access, some media access. We find it inadequate. We would like 
to see more. Our Ambassador to Burma, Scott Marciel, has been 
able to go to Rakhine State, including Northern Rakhine State 
and, for that matter, other parts of the country that are 
experiencing conflict as well. Just this week, he was in 
Northeast Burma, where Kachin State and Shan State continue to 
suffer from internal conflict.
    Senator Gardner. Thank you.
    Thanks again to everyone for attending today's hearing, and 
thanks for your willingness to serve and your public service 
over the past many years. The witnesses, grateful for your 
appearance today.
    For the information of members, the record will remain open 
until the close of business on Thursday, including members--for 
members to submit questions for the record. And I would ask 
kindly that you return your homework as quickly as possible, 
and the responses will be made a part of the record.
    Senator Gardner. Thanks to this committee.
    The hearing is now adjourned.


    [Whereupon, at 10:28 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
            Michael S. Klecheski by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career, promoting democracy and human rights 
have been key foci of my work. That began early in my career, when as a 
political officer in Embassy Moscow in what was then the USSR, human 
rights was the core of my portfolio, and included regularly meeting 
with and reporting on the circumstances of human rights activists and 
``refuseniks'' (Soviet citizens of Jewish faith whom the authorities 
had precluded from receiving exit visas to emigrate). As many of those 
people subsequently commented to me, my efforts and those of our team 
demonstrated the commitment of the U.S. to human rights, as well as 
lending those people much-needed encouragement in their often difficult 
circumstances. I continued that effort in my subsequent assignments in 
Russia, finding creative ways, in that country's changing political 
context, to make clear the U.S. commitment to human rights and 
contributing to the formation of U.S. policy on that set of issues. As 
Political Counselor at the U.S. Mission in Geneva, I led a team that 
worked predominantly in the U.N. Human Rights Council, often serving as 
the USG's senior representative in that body's proceedings. In that 
capacity, I articulated the U.S. position on human rights and democracy 
concerns, engaged informally with other delegations and with non-
governmental organizations to promote our positions, and highlighted 
our concerns with the Council and its workings. Those efforts 
contributed to passage of numerous resolutions condemning the human 
rights behavior of various countries and proposing measures to monitor 
and improve their behavior. As a Team Leader of a Provincial 
Reconstruction Team in Iraq, I led the effort to foster key elements of 
democracy, such as a free press and independent judiciary, in the 
province in which I worked. The effort was challenging, but we 
succeeded in strengthening the media environment, boosting the work of 
NGOs involved in women's and other issues, and much else. These are 
among the highlights of a career in which human rights and democracy 
issues have enjoyed pride of place, and I am proud that it has had an 
impact in furthering these key American values.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Mongolia? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Mongolia has held multiple free and fair elections since 
its transition to democracy in 1990, including several peaceful 
transitions of power between competing political parties. Some voters, 
dissatisfied with the choice of candidates for the most recent 
presidential elections in 2017, cast blank ballots to demonstrate their 
commitment to democracy, the first time this was seen in Mongolia. The 
country is host to a lively free press and growing civil society. 
Mongolia's judicial sector needs to increase its capacity to strengthen 
the rule of law and enhance transparency. Public corruption and 
institutional weakness stand as the most serious threats to Mongolia's 
democracy. These interrelated challenges can erode public trust in 
Mongolia's democratic governing institutions, now barely a generation 
old.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Mongolia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Our shared democratic values are the cornerstone of the 
U.S.-Mongolia relationship, and Mongolia's democracy is its best 
defense in support of its continued sovereignty and independence. The 
U.S. Government has long worked to promote transparency and good 
governance in Mongolia through support to civil society, exchange 
programs for leaders and public officials to share good governance 
practices, and training for law enforcement, and if confirmed, I look 
forward to continuing these efforts. Combined, these serve to address 
public corruption by promoting a more open and just society. Any effort 
to combat corruption will encounter resistance from those who benefit 
from it, in particular in a country only recently removed from its 
communist past, but Mongolia has overcome great challenges before; I am 
confident a brighter future awaits if we keep up the fight.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. One of the best ongoing U.S. investments in support of 
Mongolian democracy and governance is the Leaders Advancing Democracy 
(LEAD) Project, funded through USAID. LEAD connects young democratic 
leaders in Mongolia not only with their counterparts in the United 
States, but also in the region, building networks that improve their 
resilience and resourcefulness. The State Department's International 
Visitor Leadership Program, or IVLP, is also a highly effective and 
targeted tool that allows us to provide timely and relevant capacity 
building to leaders across civil society, government, academia, and 
elsewhere. The Department of State also funds Export Control and 
Related Border Security (EXBS) and International Narcotics and Law 
Enforcement (INL) programs, which are helping to improve Mongolia's 
border security and sovereignty. Similarly, Open World Leadership 
Center exchange programs for judges and members of parliament have 
greatly contributed to Mongolia's democratic development. If confirmed, 
I would continue to support these lines of effort.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Mongolia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Our engagement with Mongolian civil society is as old as 
the bilateral relationship itself. U.S. civil society organizations 
were a motive force in Mongolia's transition to a democratic, free-
market society. We continue our close cooperation with the Mongolian 
NGOs that have followed in their footsteps. I view continuing our 
engagement as an invaluable force-multiplier for our efforts to 
strengthen and reinforce U.S.-Mongolian shared values.
    Mongolia currently places few restrictions on the activities of 
NGOs and civil society, but is now considering revisions to the 
statutes governing their registration and operations. If confirmed, I 
would closely monitor related developments.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Engaging with all parties in the political process is 
essential to promoting U.S. interests--including our interest in 
underscoring the legitimacy of Mongolia's existing multiparty 
democracy. The Mongolian people have demonstrated repeatedly that they 
will hold their elected officials accountable, leading to several 
peaceful democratic transitions of power since Mongolia's first free 
elections in 1990. Today's opposition could very well be tomorrow's 
government; it is in our interest to maintain constructive 
relationships with groups across the political spectrum. Mongolia's 
youth will be its next generation of political leaders and decision 
makers. If confirmed, I would consistently advocate for broader 
inclusion of women, minorities, and youth in the political process.

    Question 7. Will you and your embassy team actively engage with 
Mongolia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Mongolia?

    Answer. Mongolia is fortunate to possess an active press that 
represents a wide range of perspectives largely without restriction. 
Mongolia's press does need to develop a stronger capacity and will to 
verify information before disseminating it. However, Mongolia's free 
press is an essential asset in protecting the country's democracy and 
independence and a key player in fighting corruption by holding 
political and business leaders accountable. As such, if confirmed, I 
would place importance on its institutionalization and development.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Mongolia?

    Answer. As a vibrant democracy, Mongolia's media and information 
environment is varied and accessible to a range of actors. This is 
fundamentally a strength of Mongolian society, and reflects our shared 
values of openness and inclusiveness. As elsewhere, the price of this 
openness is vulnerability to those who seek to leverage it to advance 
other agendas. If confirmed, I would work with the embassy team to 
continue U.S. efforts to strengthen media and civil society--including 
through programs such as LEAD and training for journalists--providing a 
toolkit to increase resilience in the face of disinformation and 
propaganda. Regular information sharing about foreign influence efforts 
with our partners in the Mongolian government would also remain an 
important element of our effort to support Mongolia's preservation of 
its sovereignty.

    Question 9. Will you and your embassy teams actively engage with 
Mongolia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Mongolian law protects the rights of workers to join 
independent unions and professional organizations, along with the right 
to conduct strikes and engage in collective bargaining in most 
circumstances. If confirmed, I will actively engage with both the 
Mongolian government and labor groups to ensure these laws are enforced 
fairly and effectively.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Mongolia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Mongolia? What specifically will you commit to do to help LGBTI 
people in Mongolia?

    Answer. Defending the basic dignity and human rights of all people 
is a core tenet of our foreign policy and an essential element of a 
healthy democratic society. Mongolia's new criminal code, effective 
last year, prohibits discrimination based on sexual orientation or 
gender identity, advancing legal protections for the LGBTI community. 
However, enforcement of these provisions has been sparse, and 
discrimination and violence against LGBTI individuals remains 
prevalent, especially in Mongolia's rural areas. If confirmed, I would 
use our strong and growing relationship within Mongolian law 
enforcement, prosecutors, and judges to enhance Mongolia's enforcement 
of these provisions and to raise the profile of offenses against LGBTI 
individuals within the criminal justice community.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Michael S. Klecheski by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, promoting democracy and human rights 
have been key foci of my work. That began early in my career, when as a 
political officer in Embassy Moscow in what was then the USSR, human 
rights was the core of my portfolio, and included regularly meeting 
with and reporting on the circumstances of human rights activists and 
``refuseniks'' (Soviet citizens of Jewish faith whom the authorities 
had precluded from receiving exit visas to emigrate). As many of those 
people subsequently commented to me, my efforts and those of our team 
demonstrated the commitment of the U.S. to human rights, as well as 
lending those people much-needed encouragement in their often difficult 
circumstances. I continued that effort in my subsequent assignments in 
Russia, finding creative ways, in that country's changing political 
context, to make clear the U.S. commitment to human rights and 
contributing to the formation of U.S. policy on that set of issues. As 
Political Counselor at the U.S. Mission in Geneva, I led a team that 
worked predominantly in the U.N. Human Rights Council, often serving as 
the USG's senior representative in that body's proceedings. In that 
capacity, I articulated the U.S. position on human rights and democracy 
concerns, engaged informally with other delegations and with non-
governmental organizations to promote our positions, and highlighted 
our concerns with the Council and its workings. Those efforts 
contributed to passage of numerous resolutions condemning the human 
rights behavior of various countries and proposing measures to monitor 
and improve their behavior. As a Team Leader of a Provincial 
Reconstruction Team in Iraq, I led the effort to foster key elements of 
democracy, such as a free press and independent judiciary, in the 
province in which I worked. The effort was challenging, but we 
succeeded in strengthening the media environment, boosting the work of 
NGOs involved in women's and other issues, and much else. These are 
among the highlights of a career in which human rights and democracy 
issues have enjoyed pride of place, and I am proud that it has had an 
impact in furthering these key American values.

    Question 2. What are the most pressing human rights issues in 
Mongolia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Mongolia? What do 
you hope to accomplish through these actions?

    Answer. Corruption, abuse of prisoners and detainees by law 
enforcement, and discrimination and violence against LGBTI individuals 
stand as the most pressing human rights issues in Mongolia today. All 
of these actions are prohibited by Mongolian law, but a lack of 
institutional capacity to support enforcement, along with weak norms in 
support of their criminalization, inhibit progress on addressing these 
issues. If confirmed, to make progress I would continue our efforts to 
build the capacity of Mongolian government and legal institutions, 
along with encouraging broader transparency and engagement with civil 
society through initiatives such as the Transparency Agreement signed 
in 2017. Mongolia is already a vibrant democracy--by providing more 
avenues through which the Mongolian people may improve their own 
government, we can assist them in pushing for the responsive government 
they want.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mongolia in 
advancing human rights, civil society and democracy in general?

    Answer. Corruption is the greatest challenge to Mongolia's young 
democracy, as it undermines not only the country's institutions 
themselves, but the public's faith in those institutions. Mongolia's 
people are calling for more effective and transparent governance that 
better addresses and responds to society's needs. Mongolia's principal 
agency for investigating corruption, the Independent Authority Against 
Corruption, last year increased its workload four times over the 
previous year. Capacity and financial challenges are real. However, 
Mongolia has proven over the last 30 years just how much it can change 
and I am confident the future will bring more positive developments in 
line with our ideals. Continued U.S. investment in increasing the 
capacity of Mongolia's free press, active political participation, and 
law enforcement and judicial actors will pay dividends as Mongolia 
continues to look westward in its future.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mongolia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Our relationships with Mongolian civil society are 
longstanding and help strengthen our partnership built on shared 
values. If confirmed, I would continue our robust engagement with NGOs 
promoting human rights, among other worthy causes. Ensuring that our 
security assistance and cooperation reinforce human rights is of vital 
importance. I would work to ensure that our efforts in this arena 
continue to fully comply with the Leahy Law and support its aims so 
that vital training and exchanges, such as those at the International 
Law Enforcement Academy (ILEA) in Bangkok, continue and grow in the 
future. Of particular note, the Mongolian soldiers who serve in concert 
with the NATO coalition in Afghanistan and in active roles in U.N. 
peacekeeping missions enjoy a well-deserved reputation as honorable and 
reliable.

    Question 5. Will you and your embassy team actively engage with 
Mongolia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Mongolia?

    Answer. Mongolia's democratic institutions have largely replaced 
the repressive practices of its communist past. While political 
prisoners are not currently an outstanding issue with the Mongolian 
government, the criminal code continues to allow the imposition of exit 
bans restricting travel outside the country. If confirmed I would 
steadfastly work to help Mongolia improve the transparency, neutrality, 
and impartiality of the criminal justice system in order to ensure that 
the accused are afforded due process and, if prosecuted, a fair trial.

    Question 6. Will you engage with Mongolia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Our relationship with Mongolia is built on shared interests 
and shared values. We maintain robust engagement with the Mongolian 
government and civil society on human rights, civil rights, and 
governance. Through grants, exchanges, and training programs, we 
develop civil society leaders, increase the capacity of government 
officials, and enhance Mongolia's governance. For example, judicial 
exchange participants impressed with the transparency and openness of 
U.S. courts have assisted in the movement to ensure court decisions in 
Mongolia are accessible to the public. Similarly, our funding has 
helped to train law enforcement personnel on effective implementation 
of hate crimes legislation to better protect the LGBTI community. If 
confirmed, I would continue such efforts.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Mongolia?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I firmly believe in the importance of diversity, both 
because it represents American values and because it fosters greater 
productivity and creativity. Throughout my career, and notably in two 
assignments as Deputy Chief of Mission (DCM), I have fostered 
diversity. I have been an active mentor of First- and Second-Tour 
Officers, and in both DCM positions extended our embassies' career 
development programs to include mid-level officers. I have made it a 
point to ensure diversity in assignments, with a focus on 
underrepresented groups in the Foreign Service. As DCM in Embassy 
Manila, I proudly worked with a group of activist colleagues to 
spearhead an innovative program to promote gender diversity, the 
Regional Gender Network. Having proven its strong impact in Manila, the 
program was subsequently extended to many other posts in the East Asia 
and Pacific Bureau. Diversity is an asset to the Foreign Service, and I 
would continue my career-long efforts to promote it if confirmed.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would make the importance of diversity and 
inclusivity key points in the workings of Embassy Ulaanbaatar. I would 
do so by highlighting the importance that the State Department and I 
attach to it. More significantly, I would model my commitment to 
diversity and inclusivity, drawing on my experience in previous posts, 
to stress that our post's commitment would be regular and sustained.

    Question 12. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Political corruption clearly harms democracy and the rule 
of law throughout the world, which is why I have been proud, in my 
prior Foreign Service assignments, to work on U.S. Government programs 
to counter corruption. In Mongolia, political corruption is a serious 
challenge to democratic governance and the rule of law. A public weary 
of political corruption has less confidence in its government's actions 
and less faith in its decisions. Conflicts of interest impede the 
government's ability to enact difficult regulatory and economic 
reforms. An opaque bureaucracy and weak civil service system leads to 
questionable decision making and capricious tender selections. Poor 
enforcement of campaign finance laws undermines the public's trust in 
the political system and breed further corruption throughout the 
government and political class.Mongolia's continued progress in 
addressing corruption remains slow. The government in 2016 adopted a 
National Program Combatting Corruption, and recently introduced more 
severe punishments for corruption-related offenses for public servants 
and officials. For example, the criminal code now bans those sentenced 
for corruption from public service. It also offers immunity from 
punishment to any person reporting their own bribery of an official at 
the official's request. The Independent Authority Against Corruption 
(IAAC), which the public views as effective, faces an increasing 
workload without commensurate resources. It is clear that corruption is 
on the mind of the Mongolian public and some government officials, and 
we support and encourage these actions. We must also recognize, 
however, that high-profile corruption scandals continue to emerge 
regularly and businesses report little reduction in working-level 
corruption. Mongolia should redouble its efforts.

    Question 13. What is your assessment of corruption trends in 
Mongolia and efforts to address and reduce them by the government of 
Mongolia?

    Answer. Mongolia's continued progress in addressing corruption 
remains slow. The government in 2016 adopted a National Program 
Combatting Corruption, and recently introduced more severe punishments 
for corruption-related offenses for public servants and officials. For 
example, the criminal code now bans those sentenced for corruption from 
public service. It also offers immunity from punishment to any person 
reporting their own bribery of an official at the official's request. 
The Independent Authority Against Corruption (IAAC), which the public 
views as effective, faces an increasing workload without commensurate 
resources. It is clear that corruption is on the mind of the Mongolian 
public and some government officials, and we support and encourage 
these actions. We must also recognize, however, that high-profile 
corruption scandals continue to emerge regularly and businesses report 
little reduction in working-level corruption. Mongolia should redouble 
its efforts.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Mongolia?

    Answer. If confirmed, I would prioritize engagement on multiple 
fronts. Throughout the Indo-Pacific region, of which Mongolia is a 
part, we are committed to working with Indo-Pacific nations to create 
the conditions needed to unlock greater private investment, combat 
corruption, and secure nations' autonomy from foreign coercion. I would 
continue to pursue full implementation of the U.S.-Mongolia 
Transparency agreement, which would improve Mongolia's provision of 
fair and predictable regulation. I would also continue to support 
efforts by my interagency colleagues to build the capacity of Mongolian 
law enforcement to combat money laundering, which aids and abets public 
corruption. Continued investment in Mongolia's young emerging leaders 
through exchange programs will promote better future governance 
practices.

    Question 15. If confirmed, will you support efforts to establish a 
trade preference program focused on cashmere imports from Mongolia?

    Answer. By 2020, mining is expected to account for thirty percent 
of Mongolia's GDP. Alongside supporting the sustainable utilization of 
the country's resource wealth, the United States agrees with Mongolia 
that economic diversification is an important component of the 
country's long-term prosperity and independence. If confirmed, I will 
work with you and other stakeholders, including my colleagues at USTR, 
to help Mongolia diversify its exports and markets.

    Question 16. How will you work to ensure that Mongolia meets and 
maintains GSP eligibility requirements (e.g., protection of 
intellectual property rights, worker protections, level of economic 
development in country) in order to qualify for trade preferences?

    Answer. In September 2018, the United States and Mongolia released 
a Roadmap for Expanded Economic Partnership that charts a course 
towards progress on a wide range of issues considered in GSP 
eligibility. Both sides, for example, expressed a shared interest in 
improving transparency and protection for intellectual property rights 
in Mongolia's economy as part of the Roadmap. We also expressed a 
desire to continue engagement through the USTR-led Trade and Investment 
Framework Agreement consultations and to ensure that U.S. economic 
priorities are advanced through our U.S.-Mongolia Annual Bilateral 
Consultations. If confirmed, I would continue to press forward along 
the broad front of our economic engagement with Mongolia.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            Michael S. Klecheski by Senator Edward J. Markey

    Question 1. If confirmed, how will you seek to enhance the 
bilateral relationship with Mongolia, in light of increased Chinese 
investments and the long-standing relationship with Russia? Are you 
concerned that our policies will raise geo-political concerns of 
putting Mongolia in the middle of a broader rivalry for strategic 
influence?

    Answer. The United States has made clear that our approach to a 
free and open Indo-Pacific excludes no nation. We conduct our relations 
with Mongolia, an Indo-Pacific partner, in that spirit. Our 
collaboration with Mongolia focuses on improving transparency, 
strengthening the rule of law, fighting corruption, and promoting 
economic sustainability. This engagement with Mongolia is part of the 
Indo-Pacific Transparency Initiative announced by the Vice President on 
November 17. If confirmed, I would continue these efforts.
    We anticipate that Mongolia will continue to seek outside partners 
for investment to further its economic development, as it has done 
since its independence. We want American investment to be an important 
part of that development. By strengthening Mongolia's capacity to 
manage investment transparently and sustainably, we enhance its ability 
to ensure these investments serve the interests of Mongolia and the 
Mongolian people, to include the nation's sovereignty and independence. 
Our partnership with Mongolia fosters the conditions needed to attract 
greater private investment and improve the ease of doing business 
there, benefiting all who conduct commerce there.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Hon. Matthew John Matthews by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. In my role as Ambassador for APEC, I have had the 
opportunity to work along with my team to promote and support Women's 
Economic Empowerment throughout all 21 APEC Economies. Since 2011, we 
have led efforts in APEC to break down barriers that inhibit women 
entering and remaining in the workforce. For as we all know, as the 
participation rate of women in our economies rises, the social benefits 
are clear: better distribution of income across our societies and 
better economic, health and education outcomes for all families. By 
working to ensure that all barriers to women in the workforce are 
eliminated, we not only strengthen the ability of women to speak out 
and act in accordance with their interests, we create an environment 
where their contribution will generate better economic outcomes for 
everyone. Such outcomes not only support women's ability to engage 
successfully in the economic sphere, but in the sphere of social and 
political rights as well.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Brunei? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Bruneian citizens do not have the ability to choose their 
government. The sultan rules through hereditary birthright. While the 
country is a constitutional sultanate, in 1962 the ruler at the time 
invoked an article of the constitution that allowed him to assume 
emergency powers. The present sultan continued this practice, which 
places few limits on his power.
    Other challenges include limitations on freedoms of expression, 
press, assembly, and association. The law gives the Government of 
Brunei the right to bar distribution of foreign publications and 
requires distributors of foreign publications to obtain a government 
permit. The law also allows the Government to close a newspaper without 
giving prior notice or showing cause. The law provides for prosecution 
of newspaper publishers, proprietors, or editors who publish anything 
with an alleged seditious intent.
    The Government's proclamation of emergency powers restricts the 
right to assemble. Public gatherings of 10 or more persons require a 
government permit, and police may disband an unofficial assembly of 
five or more persons deemed likely to cause a disturbance of the peace. 
The law does not provide for freedom of association. It requires formal 
groups, including religious, social, business, labor, and cultural 
organizations, to register with the Registrar of Societies and provide 
regular reports on membership and finances.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Brunei? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States is working to promote civil society, the 
rule of law, and transparent and accountable governance across the 
region, including in Brunei, as part of the governance pillar of the 
Indo-Pacific strategy. The new Indo-Pacific Transparency Initiative 
under this pillar encompasses efforts to empower the region's citizens, 
help combat corruption, and strengthen nations' autonomy. If confirmed, 
I hope to promote good governance in Brunei that is responsive to the 
needs of the public and respectful of human rights and fundamental 
freedoms.
    Although there are few limits on the sultan's power, the Government 
of Brunei has an avowed interest in the economic development of the 
country. I hope to highlight that weak institutions, corruption, and 
poor human rights conditions drive away smart private sector 
investment, and American businesses are motivated to invest in 
countries that operate transparently, uphold the rule of law, and 
protect intellectual property.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. In general, the United States does not provide U.S. 
Government assistance to high-income countries such as Brunei. As part 
of the new regional Indo-Pacific Transparency Initiative, the United 
States has continuous and ongoing programs supporting good governance, 
rule of law, civil society, independent media, elections and political 
processes, and human rights. The Transparency Initiative provides a 
framework to prioritize those programs and expand work with partners in 
support of a free and open Indo-Pacific. Although the United States 
does not generally provide foreign assistance to Brunei, if confirmed I 
will continue to work with all countries in the region to make them 
aware of our programs and encourage their support for these 
initiatives.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Brunei? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
United States and with local human rights NGOS and other members of 
civil society in Brunei. The United States is committed to protecting 
and promoting human rights and combatting corruption, advancing a world 
order that reflects U.S. values and increasing the security of the 
United States, our allies, and our partners. The strength and vibrancy 
of all nations depend on an active civil society and robust engagement 
between government and civil society. I will ensure that this message 
remains constant in our engagement with the Government of Brunei, 
including at the highest levels.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Political authority and control rests entirely with the 
sultan, and there are no political opposition figures and parties in 
Brunei. The National Development Party is the only registered political 
party, and it pledged to support the sultan and the Government. If 
confirmed, I will actively promote good governance, rule of law, civil 
society, and an independent media. I will also advocate for access and 
inclusivity for women, minorities and youth in all government and civil 
society institutions, as the United States is a strong proponent of the 
inclusion of diverse and minority voices in political processes around 
the world.

    Question 7. Will you and your embassy team actively engage with 
Brunei on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Brunei?

    Answer. Yes, my embassy team and I will actively engage with Brunei 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory or other 
measures. We encourage the Government of Brunei, as we do all 
countries, to respect freedom of expression, including for members of 
the press. My team and I will continue to support the development of a 
more active press, including new on-line publications, through 
professional training opportunities. I commit to meeting regularly with 
independent, local press in Brunei.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, my embassy team and I will actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Brunei.

    Question 9. Will you and your embassy team actively engage with 
Brunei on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, if confirmed, my embassy team and I will actively 
engage with Brunei on labor rights, including the right to form and 
join independent trade unions. I will continue the United States' 
ongoing efforts to support and promote the rights of workers to freedom 
of association and fair wages, contracts, and working conditions in all 
countries, including in Brunei.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Brunei, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Brunei? What specifically will you commit to do to help LGBTQ people 
in Brunei?

    Answer. Yes, I commit to using my position, if confirmed, to defend 
the human rights and dignity of all people in Brunei, no matter their 
sexual orientation or gender identity. Brunei is a deeply traditional, 
conservative society. Some reports indicate that LGBTI individuals in 
Brunei avoid disclosing their sexual orientations due to fear of social 
or legal retribution. Brunei's laws criminalize sodomy and ``carnal 
intercourse against the order of nature,'' which in the past has been 
interpreted to include sexual relations between men. Brunei's strict 
Sharia Penal Code, if fully implemented, would prescribe harsh 
punishments such as stoning to death for sodomy.
    Promoting, protecting, and advancing human rights, including of 
LGBTI persons, has long been and remains the policy of the United 
States. As the Universal Declaration of Human Rights states, all human 
beings are born free and equal in dignity and in rights. The Department 
of State's LGBTI-related efforts focus on deterring violence, 
advocating against laws that criminalize LGBTI status or conduct, and 
working to prevent serious levels of discrimination in areas such as 
employment and occupation, housing, and access to government services. 
The Bureau of Democracy, Human Rights and Labor (DRL) also administers 
an approximately $10 million per year Global Equality Fund, a multi-
donor fund that provides financial support to LGBTI civil society 
organizations and human rights defenders. If confirmed, advancing 
dignity and human rights for all will be a top priority for my 
engagement with the Government of Brunei.



                               __________


     Responses to Additional Questions for the Record Submitted to 
        Hon. Matthew John Matthews by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In my role as Ambassador for APEC, I have had the 
opportunity to work along with my team to promote and support Women's 
Economic Empowerment throughout all 21 APEC Economies. Since 2011, we 
have led efforts in APEC to break down barriers that inhibit women 
entering and remaining in the workforce. For as we all know, as the 
participation rate of women in our economies rises, the social benefits 
are clear: better distribution of income across our societies and 
better economic, health and education outcomes for all families. By 
working to ensure that all barriers to women in the workforce are 
eliminated, we not only strengthen the ability of women to speak out 
and act in accordance with their interests, we create an environment 
where their contribution will generate better economic outcomes for 
everyone. Such outcomes not only support women's ability to engage 
successfully in the economic sphere, but in the sphere of social and 
political rights as well.

    Question 2. What are the most pressing human rights issues in 
Brunei? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Brunei? What do you 
hope to accomplish through these actions?

    Answer. I am concerned about further implementation of Brunei's 
Sharia Penal Code, especially Phases 2 and 3, which include corporal 
punishments such as amputation for theft and stoning for apostasy, 
adultery, and sodomy. Other challenges include limitations on freedoms 
of expression, press, peaceful assembly, and association. Bruneian 
citizens also do not have the ability to choose their government, since 
the sultan rules through hereditary birthright.
    If confirmed, I will regularly communicate with Brunei regarding 
human rights and encourage the Government of Brunei to uphold its 
international commitments on human rights. I will encourage Brunei to 
ratify and implement the United Nations Convention Against Torture, 
which it signed in 2015, and to sign, ratify and implement the 
International Covenant on Civil and Political Rights. We encourage the 
Government of Brunei, as we do all countries, to respect freedom of 
expression, including for members of the press. I will continue to 
support the development of a more active press, including new on-line 
publications, through professional training opportunities.
    The United States is working to promote civil society, the rule of 
law, and transparent and accountable governance across the region, 
including in Brunei, as part of the governance pillar of the Indo-
Pacific strategy. The new Indo-Pacific Transparency Initiative under 
this pillar encompasses efforts to empower the region's citizens, help 
combat corruption, and strengthen nations' sovereignty through 
transparency and accountability. I hope to promote good governance in 
Brunei that is responsive to the needs of the public and respectful of 
fundamental human rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Brunei in advancing 
human rights, civil society and democracy in general?

    Answer. Brunei is a majority-Muslim country, and Islam has long 
played a role in its laws and government. Since political authority and 
control rests entirely with the sultan, he could decide to further 
implement the Sharia Penal Code at any time. Brunei is a deeply 
traditional, conservative society, and some changes will take more time 
to bring about. Civil society in Brunei is still nascent, the media is 
accustomed to self-censorship, and there are no political opposition 
figures and parties in Brunei.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Brunei? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, I commit to meet with human rights, 
civil society and other non-governmental organizations in the United 
States and with local human rights NGOs in Brunei. The United States is 
committed to protecting and promoting human rights and combatting 
corruption, advancing a world order that reflects U.S. values and 
increasing the security of the United States, our allies, and our 
partners. The strength and vibrancy of all nations depend on an active 
civil society and robust engagement between government and civil 
society. I will ensure that this message remains constant in our 
engagement with the Government of Brunei, including at the highest 
levels. Consistent with U.S. law and Department policy, I will also 
ensure that we fully vet all Bruneian security force recipients of USG-
funded assistance, and that provisions of U.S. security assistance and 
cooperation activities reinforce human rights.

    Question 5. Will you and your embassy team actively engage with 
Brunei to address cases of key political prisoners or persons otherwise 
unjustly targeted by Brunei?

    Answer. We are not aware of cases of political prisoners or persons 
otherwise unjustly targeted by Brunei. If confirmed, my embassy team 
and I will actively engage with Brunei should we learn of such cases.

    Question 6. Will you engage with Brunei on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage with Brunei on matters of 
human rights, including civil rights, and governance as part of the 
bilateral mission.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Brunei?

    Answer. My investment portfolio includes funds that may have 
investments in companies in Brunei; however, these funds are exempt 
from the conflicts of interest rules and have been reviewed by the 
State Department Ethics Office. I am committed to ensuring that my 
official actions will not give rise to a conflict of interest. I will 
divest my interests in any investments the State Department Ethics 
Office deems necessary in the future to avoid a conflict of interest, 
and will remain vigilant with regard to my ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As I have taken on increasingly broad managerial 
responsibilities in the Foreign Service, I have mentored entry level 
and mid-level officers from diverse backgrounds to ensure they develop 
the skills and enjoy the kind of opportunities that will enable them to 
rise successfully to higher levels in the Foreign Service. I have also 
worked assiduously to ensure they have properly prepared for 
competitive promotions within our internal competitive job bidding 
process, both in our missions abroad and in the Department of State in 
Washington, D.C.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. As the Ambassador, the first step is to send a clear 
message to every person in the mission, supervisors as well as other 
employees, that fostering an environment supportive of diversity and 
inclusiveness is key to obtaining and maintaining optimal performance. 
The second step is to make it clear that this is the standard to which 
we will operate. The third step is to set an example by modeling 
leadership and management approaches that help to achieve those 
outcomes, and making it clear that I will evaluate supervisors on their 
ability to deliver on creating and maintaining an environment where 
diversity and inclusiveness is strongly supported.

    Question 12. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Democratic governance and the rule of law cannot flourish 
when political corruption runs rampant. Corruption, weak institutions, 
and poor human rights conditions also drive away smart private sector 
investment, which further entrenches political corruption and robs a 
country of needed capital to meet its development goals. The United 
States is working to promote civil society, the rule of law, and 
transparent and accountable governments across the region, including in 
Brunei, as part of the governance pillar of the Indo-Pacific strategy. 
The new Indo-Pacific Transparency Initiative under this pillar 
encompasses efforts to empower the region's citizens, help combat 
corruption, and strengthen nations' autonomy.
    We assess that corruption is not pervasive in Brunei, although 
isolated incidents of low-ranking officials accepting bribes reportedly 
occur. In September 2016, Brunei's Anticorruption Bureau reported seven 
government officials were summoned to court for corruption, and two 
officials were charged. The law provides criminal penalties for 
corruption by officials, and the Government generally implements these 
laws effectively. If confirmed, I will work to promote good governance 
in Brunei that is responsive to the needs of the public and respectful 
of human rights and fundamental freedoms.

    Question 13. What is your assessment of corruption trends in Brunei 
and efforts to address and reduce them by the Government of Brunei?

    Answer. We assess that corruption is not pervasive in Brunei, 
although isolated incidents of low-ranking officials accepting bribes 
reportedly occur. As of September 2016, Brunei's Anticorruption Bureau 
reported seven government officials were summoned to court for 
corruption, and two officials were charged. The law provides criminal 
penalties for corruption by officials, and the Government generally 
implements these laws effectively.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Brunei?

    Answer. If confirmed, I will work to further strengthen good 
governance and anticorruption programming in Brunei. The United States 
is working to promote civil society, the rule of law, and transparent 
and accountable governments across the region, including in Brunei, as 
part of the governance pillar of the Indo-Pacific strategy. The new 
Indo-Pacific Transparency Initiative under this pillar encompasses 
efforts to empower the region's citizens, help combat corruption, and 
strengthen nations' autonomy. I hope to promote good governance in 
Brunei that is responsive to the needs of the public and respectful of 
human rights and fundamental freedoms.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Hon. Matthew John Matthews by Senator Jeanne Shaheen

    Question 1. In your view, in countries that do not share U.S. views 
on LGBT rights, how should a U.S. chief of mission advocate for full 
privileges, immunities and other rights for same-sex spouses?

    Answer. Promoting, protecting, and advancing human rights, 
including of LGBTI persons, has long been and remains the policy of the 
United States. As the Universal Declaration of Human Rights states, all 
human beings are born free and equal in dignity and in rights. The 
Department of State's LGBTI-related efforts focus on deterring 
violence, advocating against laws that criminalize LGBTI status or 
conduct, and working to prevent serious levels of discrimination in 
areas such as employment and occupation, housing, and access to 
government services. The Bureau of Democracy, Human Rights and Labor 
(DRL) also administers an approximately $10 million per year Global 
Equality Fund, a multi-donor fund that provides financial support to 
LGBTI civil society organizations and human rights defenders.
    If confirmed, advancing dignity and human rights for all will be a 
top priority for my engagement with the Government of Brunei. I will 
continue the mission's ongoing and constructive engagement with the 
Government of Brunei, including through our regular bilateral Senior 
Officials Dialogue, to ensure that Brunei grants full privileges, 
immunities, and other rights for same-sex spouses.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Hon. Matthew John Matthews by Senator Edward J. Markey

    Question 1. The Government of Brunei has publicly expressed 
interest in diversifying its economy, reducing its dependency on fossil 
fuels, and potentially investing in renewable energy. If confirmed, 
will you encourage these efforts? If so, how?

    Answer. Yes, if confirmed, I will encourage the Government of 
Brunei to diversity its economy, reduce its dependency on fossil fuels, 
and invest in renewable energy and the services sector. In recent 
years, Brunei's economy has been in recession. In 2017, Brunei saw its 
first positive economic growth in five years, but only at 0.5 percent. 
The economy is expected to grow by a mere 1 percent in 2018, but 
increase to nearly 8 percent in 2019 based on forecasted oil prices, 
potentially making it one of the fastest-growing economies in the 
region. Economic growth in Brunei is closely tied to the price of oil, 
and the country remains one of the most hydrocarbon-dependent economies 
in the world.
    Brunei is continuing efforts to diversify its economy away from its 
enduring reliance on oil and gas exports. Investment opportunities in 
Brunei are driven both by government planning and consumer demand. If 
confirmed, I look forward to deepening the economic ties between Brunei 
and the United States, including areas of U.S. competitive advantage 
that match Brunei's economic priorities, and promoting U.S. and U.S.-
linked companies trading with and operating in Brunei. I will also 
continue to support high U.S. standards for trade and economic 
development in the region.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              W. Patrick Murphy by Senator Robert Menendez

    Question 1. As you know, many human rights groups, members of 
Congress, and even parts of the State Department, including the Bureau 
of Democracy, Rights, and Labor, opposed the administration's October 
2016 decision to revoke a state of emergency and lift the bulk of the 
last main set of sanctions about the Burmese Government. They argued 
that lifting the sanctions would remove one of the U.S. Government's 
last remaining strong pieces of leverage over the Burmese Government 
and the military in particular. Tragically, within days of that 
decision being made, a small group of Rohingya militants attacked 
police personnel in Rakhine State, and Burmese security personnel 
launched a massive and disproportionate attack on dozens of Rohingya 
villages, resulting in over 87,000 displaced into Bangladesh. 
Subsequent violence in 2017 led to the displacement of almost ten times 
more people, meaning that almost a million Rohingya are now displaced.
    Given the violence that has occurred since then, and the Burmese 
Government's ongoing denialism and recalcitrance in the face of 
international criticism, what is your perspective, today, on the 
administration's October 2016 decision? Do you think there are lessons 
to be learned--for Burma, for Cambodia, and elsewhere--given how the 
situation played-out in Burma following the removal of sanctions that 
suggests that a calibrated approach in which some sanctions are removed 
and others kept might be more effective to advance U.S. interests and 
values?

    Answer. The horrific atrocities that have occurred in Rakhine 
State, the ongoing violence in Kachin and Shan States, and the 
continuing human rights concerns across Burma are reprehensible, 
regardless of Burma's leadership. These issues, however, are rooted in 
decades-old conflicts that festered under successive repressive and 
isolationist military dictatorships. While there is no easy or quick 
solution, I believe that strengthening Burma's democracy, improving 
Burma's civilian governance, along with fostering greater respect for 
freedom of religion and other human rights and the rule of law, offer 
the best hope for the people of Burma.
    While we continue to assist Burma in this transition to a more open 
and democratic system of governance with civilian control of the 
military, we recognize the continuing risk the Burmese military poses 
to Burma's current civilian administration and populations across 
Burma. As such, in accordance with the Tom Lantos Block Burmese JADE 
Act of 2008, we have kept in place strict limitations on the issuance 
of visas for entry to the United States by senior Burmese military 
officials and their families, as well as restrictions on U.S. 
assistance to Burma, particularly to its military, and an embargo on 
arms sales to Burma.
    In response to recent violence, the United States has supported new 
accountability measures including the U.N. Fact-Finding Mission, the 
establishment of an evidence gathering mechanism, the U.N. Special 
Rapporteur on Human Rights, and the U.N. Special Envoy to Burma. 
Additionally the United States has implemented financial sanctions on 
five individuals and two entities since August 2017 for atrocities 
committed in Rakhine, Kachin, and Shan States.

    Question 2. Congress has also received reports that in late 2016 
and early 2017 you and other State Department officials opposed EU 
proposals at the U.N. Human Rights Council to create an independent 
fact-finding mission (FFM). Is that true? If so, what was the basis for 
the opposition?

    Answer. The State Department has consistently supported the mandate 
and work of the U.N. Fact-Finding Mission (FFM). Further, we have 
ensured that the FFM was able to brief publicly the U.N. Security 
Council, despite opposition from some member states. This U.N. Security 
Council briefing was open and live streamed for those interested in the 
report's findings and ensuing discussion.

    Question 3. Can you provide the committee with a complete 
chronology of the discussions between the U.S. and the GoB regarding 
sanctions relaxation in 2015 and 2016, including the principal 
proposals advocated by each government at each step in the process?

    Answer. The United States has supported and continues to support 
Burma's transition to democracy, along with associated political and 
economic reforms; promote national reconciliation; encourage government 
transparency, accountability, and strengthened institutions; empower 
local communities and civil society; press for responsible 
international engagement; and build respect for and protection of human 
rights, including freedom of religion or belief.
    I cannot comment specifically on internal Department deliberations, 
though the Congressional Research Service's comprehensive February 2017 
report provides a detailed chronology of the U.S. easing of sanctions, 
which was undertaken in consultation with Congress through the end of 
2016, after Burma elected its first civilian-led government in more 
than 50 years in November 2015. Significant restrictions remain in 
place, as we recognize the continuing threat the Burmese military poses 
to Burma's current civilian administration and to Burma's long-term 
prospects to transition toward a more open, inclusive, and democratic 
society. We have maintained strict limitations on issuing visas to 
enter the United States to senior Burmese military officials and their 
families; restrictions on U.S. assistance, particularly to its armed 
forces; and an embargo on arms sales.

    Question 4. What have you learned given the real world tests in 
Southeast Asia over the past several years while you have served as a 
senior official in the Department about the relative benefits and costs 
of sanctions relaxation and re-imposition?

    Answer. Sanctions, whether broad-based or targeted, are most 
effective when coupled with incentives, linked to specific actions or 
milestones, calibrated to the associated costs and benefits, and 
implemented in concert with other members of the international 
community. In the case of Burma, the decision to gradually relax 
sanctions began in 2012--in close consultation with Congress--in 
response to specific reform steps undertaken by the then-military 
government. We kept, and still maintain, restrictions aimed at the 
military--including our arms embargo and visa restrictions for military 
commanders--while reducing the restrictions for U.S. business and 
assistance to enter Burma and assist the country and its economy in 
transitioning out from under the military's grip.
    While sanctions can limit the influence of human rights abusers, 
other programs can go a long way to support democratic reform. Since 
2012, U.S. development assistance has been carefully integrated with 
our diplomatic efforts, focusing on deepening and sustaining key 
political and economic reforms, ensuring that the democratic transition 
benefits the diverse Burmese population, and mitigating social 
divisions along intercommunal, ethnic, and religious lines. Since 2012, 
the United States has provided over $500 million to support Burma's 
transition, advance the peace process, and improve the lives of 
millions, including by assisting communities affected by violence and 
combatting hate speech and communal violence.
    The United States also has a powerful tool in Executive Order 
13818, which builds upon the Global Magnitsky Human Rights 
Accountability Act. We have employed this tool with effect in Burma 
against five Burmese commanders and two military units. These 
calibrated sanctions enable the United States to target bad actors 
while avoiding collateral damage to Burma's continued political and 
economic reforms.

    Question 5. With the benefit of hindsight, do you agree or disagree 
with the argument that many outside observers, human rights groups, and 
some members of Congress made when they argued that the U.S. should 
have maintained some of its previous sanctions on Burma, and encouraged 
other countries to do so, and that if the U.S. had in fact done so, at 
least some of the terrible atrocities that have occurred since 2006 
might have been avoided? Would such an approach have given the U.S. and 
democratic leaders in Burma more or less leverage to press on human 
rights, democratic transition, ethnic and religious reconciliation and 
the peace process?

    Answer. The U.S. Government, with the support of Congress, has 
employed an engagement strategy that has recognized the positive steps 
undertaken by the Burmese Government in recent years, and sought to 
incentivize further changes. The guiding principles of this approach 
have been to support Burma's political and economic reforms; promote 
national reconciliation; encourage government transparency; urge 
accountability and strengthened institutions; empower local communities 
and civil society; promote responsible international engagement; and 
strengthen respect for and protection of human rights, including 
freedom of religion or belief. The United States was among the last 
countries to lift economic sanctions on Burma, which had been 
implemented to support the pro-democracy movement and improve respect 
for human rights, in response to a series of important democratic 
reforms that started in 2011. The European Union lifted its economic 
sanctions in April 2013, and the United States followed suit on October 
7, 2016.
    Ultimately, we assess that improving the current conditions and 
future prospects of people across Burma, and precluding further abuses 
by the Burmese military, depend on Burma evolving to a more open and 
democratic system of governance, civilian control of the military, 
strong institutions, and a government that upholds human rights and 
fundamental freedoms. Accordingly, we continue to seek a successful 
transition to full democracy in Burma so that its government will 
deliver good governance, end impunity, and improve human rights 
practices.
    Further, significant restrictions remain in place, as we recognized 
the continuing threat the Burmese armed forces pose to Burma's current 
civilian administration and populations across Burma. We have kept in 
place limitations on issuing visas to enter the United States to senior 
military officials and their families; restrictions limiting the types 
of U.S. assistance to Burma, particularly to its military; and an 
embargo on arms sales to Burma.
    In response to increasing levels of violence, the United States has 
supported new accountability measures including the U.N. Fact-Finding 
Mission, the establishment of an evidence gathering mechanism, and the 
U.N. Special Rapporteur on Human Rights. Additionally the United States 
has implemented financial sanctions on five individuals and two 
entities since August 2017 for atrocities committed in Rakhine, Kachin, 
and Shan States.

    Question 6. Anti-Americanism in Cambodia: Despite considerable U.S. 
and international aid to help rebuild Cambodia since the early 1990s, 
strongman Prime Minister Hun Sen's evolution into dictatorship has had 
a strong anti-American dimension. Last year, opposition leader Kem 
Sokha was imprisoned on false charges of colluding with the United 
States; U.S.-backed newspapers and radio programs have been closed and 
taken off the air; the National Democratic Institute was expelled from 
the country; the Peace Corps was sent home; and the Government has made 
a number of statements attacking the United States, including calling 
American democracy ``bloody and brutal.'' Other autocrats around the 
world seem to think the United States will turn a blind eye to such 
backsliding. How do you plan to push back against this trend in 
Cambodia and vigorously defend America's values and interests?

    Answer. If confirmed, I will continue to urge the Cambodian 
Government publicly and privately? to restore its democratic 
institutions, realize civil and political rights for all, and ensure 
freedom of the press, all based on principles enshrined in its 
Constitution. We will also engage human rights advocates, independent 
journalists, civil society organizations, private sector associations, 
and trade unions to ensure their views are visible in Cambodian 
society. We will strengthen people-to-people ties and demonstrate that 
only a democratic Cambodia is best equipped to continue to lift 
Cambodians out of poverty, empower its citizens to tackle the 
challenges Cambodia faces?, and meet the aspirations of Cambodia's 
booming youth population. We will also emphasize that only a democratic 
Cambodia can maintain an independent foreign policy and resist 
influences that seek to erode the country's sovereignty.
    I note that the Peace Corps remains active in Cambodia and was not 
forced to cease operations. The organization remains an important 
component of U.S. engagement in Cambodia, especially in the field of 
education, and if confirmed I will support fully the Peace Corps 
presence as a successful means to help meet the country's development 
goals and to foster mutual understanding.

    Question 7. Not surprisingly, Cambodia's pivot away from the United 
States has seen Hun Sen increase his country's political alignment with 
China. Given the Cambodia economy's reliance on Western markets, why do 
you think the United States has been so reluctant to use economic 
leverage to moderate Hun Sen's behavior?

    Answer. Targeted sanctions are an effective tool that can influence 
the behavior of those individuals directly involved in perpetrating 
human rights abuses and/or undermining Cambodia's democracy without 
inadvertently penalizing the broader Cambodian population. The U.S. 
Government continually aims to shape policies that use the full range 
of tools available to the United States to promote a more democratic 
Cambodia.

    Question 8. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Tackling human rights and democracy challenges has defined 
my career. I have served in, and guided relations with, numerous 
countries struggling under authoritarian rule, conflict, or fragile 
transitions--circumstances that eroded civil liberties and 
democratization. I have therefore prioritized unambiguous messaging on 
core principles; consulted civil society, likeminded countries, and 
relevant international organizations; and, in collaboration with 
Congress, contributed to developing sanctions and restrictions on 
travel and assistance. Results are not always readily apparent, but I 
am proud of my contributions to shelter nearly one million refugees in 
Guinea, negotiate peace in conflict-torn Sierra Leone, defend the 
rights of HIV-afflicted women in Lesotho, assist vulnerable minorities 
in war-torn northern Iraq, protect Chinese and North Korean dissidents, 
and help to restore the freedoms of citizens under non-democratic 
rulers across Southeast Asia. I was recognized as the Department of 
State's runner-up for the 2005 Democracy and Human Rights Award for 
efforts to support Burmese suffering under decades of military rule and 
to protect the country's highly repressed ethnic Rohingya, efforts that 
I continue to this day.

    Question 9. What issues are the most pressing challenges to 
democracy or democratic development in Cambodia? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The United States is very concerned by the democratic 
setbacks in Cambodia over the past couple of years. After Cambodia's 
free and fair local elections in 2017--in which the opposition Cambodia 
National Rescue Party (CNRP) won nearly 44 percent of local council 
seats--the ruling Cambodian People's Party Government took steps to 
marginalize the opposition, including by dissolving the CNRP, usurping 
local council seats won by the CNRP in 2017, imprisoning the party's 
leader on spurious treason charges, and banning 118 CNRP officials from 
engaging in political activity for five years. The Government also 
imposed new restrictions on civil society organizations and forced the 
closure or sale of more than 30 independent media outlets.
    As a result of these measures, the national elections held in July 
2018 were neither free nor fair and failed to represent the will of the 
Cambodian people, as noted in the White House statement released July 
29. The flawed elections and the anti-democratic steps that preceded 
them represent the most significant setback yet to the democratic 
system enshrined in Cambodia's constitution, and substantially erode 
Cambodia's achievements in promoting political reconciliation and 
economic growth since the 1991 Paris Peace Accords.

    Question 10. What steps will you take--if confirmed--to support 
democracy in Cambodia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The United States has repeatedly called for the Cambodian 
Government to release immediately and unconditionally CNRP opposition 
leader Kem Sokha; remove undue restrictions on the political 
opposition, including the ban on 118 opposition leaders from engaging 
in political activity, and initiate a meaningful process aimed at 
building genuine national reconciliation. We have also urged the 
Government to remove restrictions on civil society and independent 
media, which are critical in any democracy. If confirmed, I will urge 
the Cambodian Government to take these steps and will work with like-
minded partners to encourage Cambodia's leaders to fulfill their 
commitments under the country's constitution and the Paris Peace 
Accords.

    Question 11. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The State Department and USAID support a number of 
successful programs that work with civil society, independent media, 
youth, and other groups to support democracy and governance. If 
confirmed, I will seek to expand programs that empower Cambodia's young 
people--who account for 70 percent of the population and represent the 
country's future--to engage in the political process. I will further 
seek to develop programs that empower and train independent media in 
Cambodia.

    Question 12. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Cambodia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, absolutely. The State Department regularly engages 
human rights, civil society, and other non-governmental organizations 
in the United States and in Cambodia, as I have done in previous 
capacities as a senior diplomat. I am committed to continuing that 
engagement. If confirmed, I will continue to press the Cambodian 
Government to protect the freedoms of expression, association, and 
religion enshrined in Cambodia's constitution, and to remove undue 
restrictions on NGOs and civil society organizations. I will regularly 
and actively seek out civil society organizations' views and advice to 
inform our policies and programs in support of democratic institutions 
and human rights in Cambodia.
    Question 13. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes, absolutely. The State Department regularly engages 
democratically-oriented political opposition figures and parties in the 
United States and in Cambodia, as I have done in previous capacities as 
a senior diplomat. I am committed to continuing that engagement. If 
confirmed, I will meet with a wide variety of political groups to 
understand their concerns and determine how the United States can 
assist them in supporting a more democratic Cambodia. Our Embassy is 
actively engaged in work that encourages women, minorities, and youth 
to engage in the political process. I plan to continue that work, if 
confirmed.

    Question 14. Will you and your embassy team actively engage with 
Cambodia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory, or other measures? Will you commit to meeting regularly 
with independent, local press in Cambodia?

    Answer. We are very concerned about the restrictions imposed on 
independent media in Cambodia and have called on the Cambodian 
Government to allow the independent media to carry out its 
constitutionally protected work. If confirmed, I will strongly advocate 
for greater press freedoms, including the lifting of the ban on Voice 
of America (VOA) and Radio Free Asia (RFA) from broadcasting on FM 
radio. I am committed to meeting often with independent journalists and 
editors.

    Question 15. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in 
Cambodia?

    Answer. If confirmed, my Embassy team and I will work with the 
Department of State's Global Engagement Center, civil society, and 
independent media outlets to counter disinformation and propaganda 
disseminated by foreign state or non-state actors in Cambodia. The 
Embassy has already hosted trainings, exchanges, and workshops on 
countering disinformation in Cambodia, and we will continue this work.

    Question 16. Will you and your embassy teams actively engage with 
Cambodia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, my Embassy team and I will work closely with 
a range of partners, including unions, international brands, and 
government ministries, to promote respect for internationally-
recognized worker rights in Cambodia.
    Several U.S. trade associations have raised with us their concerns 
about the continued restrictions on workers' rights, including 
limitations on independent trade unions and labor leaders. These 
associations and the U.S. companies they represent have also engaged 
the Cambodian Government to promote fair labor practices. We will 
continue to work with these groups to address their concerns.

    Question 17. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Cambodia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Cambodia? What specifically will you commit to do to help LGBTI 
people in Cambodia?

    Answer. If confirmed, I will defend the human rights and dignity of 
all people, regardless of their sexual orientation or gender. Lesbian, 
gay, bisexual, transgender, and intersex (LGBTI) people in Cambodia 
experience discrimination, but have also enjoyed some official support 
from the King and the Cambodian Government. For example, the Ministry 
of Information issued a letter calling for artists and presenters in 
the media to stop mocking the LGBT community as it ``degrades the honor 
and rights of LGBT people who are also protected by the state's law as 
well as other citizens.'' As we have done in the past, I am committed 
to working with NGOs focused on LGBTI rights to improve awareness and 
build understanding to decrease discrimination in Cambodia.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                W. Patrick Murphy by Senator Marco Rubio

    Question 1. Did you participate in the Executive Branch's decision-
making process that led to President Obama's October 7, 2016, Executive 
Order (Termination of Emergency with Respect to the Actions and 
Policies of the Government of Burma)?

    Answer. In my role as Deputy Assistant Secretary for Southeast Asia 
in the Department of State's Bureau of East Asian and Pacific Affairs--
a role I began in April 2016 and held in October 2016--I was part of 
the team that assisted the Bureau's Assistant Secretary of State 
regarding Burma policy.

    Question 2. Did you, in any way, advocate for lifting sanctions 
against the Burmese Government prior to President Obama's October 7, 
2016, Executive Order (Termination of Emergency with Respect to the 
Actions and Policies of the Government of Burma)?

    Answer. I cannot comment specifically on internal Department 
deliberations, but in my role as Deputy Assistant Secretary for 
Southeast Asia, which I began in April 2016, I was part of the 
Department and interagency's Burma policy discussions. Department 
colleagues and I have continually aimed to shape policies that use the 
full range of tools available to the United States to support Burma's 
political and economic reforms; promote national reconciliation; 
encourage government transparency, accountability, and strengthened 
institutions; empower local communities and civil society; achieve 
responsible international engagement; and improve respect for and 
protection of human rights, including freedom of religion or belief. 
During this pivotal time in Burma's history, which included the seating 
of Burma's first elected civilian government in over 50 years, the 
Department coordinated and communicated regularly with Congress on the 
administration's policies that had commenced with a Burma policy review 
in 2010.

    Question 3. Prior to President Obama's October 7, 2016, Executive 
Order (Termination of Emergency with Respect to the Actions and 
Policies of the Government of Burma), did Burmese State Counsellor Aung 
San Suu Kyi express any concerns with State Department officials or 
other officials in the administration about lifting sanctions against 
the Burmese Government?

    Answer. The Obama administration consulted closely with Burma's 
first democratically-elected government in more than 50 years on 
lifting sanctions. During her visit to Washington in 2012 to receive 
the Congressional Gold Medal, Aung San Suu Kyi, in her capacity as an 
elected legislator, discussed initial easing of some sanctions and 
restrictions on Burma with administration and Congressional leaders. 
She held similar discussions during her 2016 visit as State Counsellor. 
Following that visit, the administration lifted sanctions, but retained 
restrictions on the Burmese military and certain forms of assistance. 
The administration assessed that overcoming 50 years of repressive 
military rule would be neither quick nor without significant 
challenges.

    Question 4. Prior to President Obama's October 7, 2016, Executive 
Order (Termination of Emergency with Respect to the Actions and 
Policies of the Government of Burma), were you aware of a policy option 
in which the United States could have terminated the national emergency 
declared in Executive Order 13047 while, at the same time, retaining 
some sanctions against the Burmese military and military entities under 
Tom Lantos Block Burmese JADE (Junta's Anti-Democratic Efforts) Act of 
2008 (Public Law 110-286) (the ``JADE Act'') or other existing 
authorities?

    Answer. I cannot comment specifically on internal Department 
deliberations, although as part of the standard interagency process the 
then-administration considered many options to further U.S. interests 
in assisting Burma's transition toward a more open, inclusive, and 
democratic society. Although Congress took steps to ease sanctions in 
2012 and the then-administration terminated the national emergency in 
2016, significant restrictions remained and continue today in light of 
threats posed by the Burmese military to the country' civilian 
administration and to long-term prospects for a complete transition 
toward a more open, inclusive, and democratic society. We have 
generally kept in place strict limitations on issuing visas to enter 
the United States to senior military officials; restrictions on U.S. 
assistance to Burma, particularly to its military; and an embargo on 
arms sales to Burma.

    Question 5. Prior to President Obama's October 7, 2016, Executive 
Order (Termination of Emergency with Respect to the Actions and 
Policies of the Government of Burma), did you ever inform, or recommend 
that the administration inform, Burmese State Counsellor Aung San Suu 
Kyi about the existence of an alternative policy option in which the 
United States could terminate the national emergency declared in 
Executive Order 13047 while, at the same time, retaining some sanctions 
against the Burmese military and military entities under Tom Lantos 
Block Burmese JADE (Junta's Anti-Democratic Efforts) Act of 2008 
(Public Law 110-286) (the ``JADE Act'') or other existing authorities?

    Answer. The Obama administration consulted closely with Burma's 
first democratically-elected government in more than 50 years. 
Significant restrictions remain in place, including portions of the 
JADE Act, in light of continuing threats the Burmese military poses to 
the country's current civilian administration and long-term prospects 
to complete a transition toward a more open, inclusive, and democratic 
society. The administration has consistently kept in place strict 
limitations on issuing visas to enter the United States to senior 
military officials and their families; restrictions on U.S. assistance 
to Burma, particularly to its military; and an embargo on arms sales to 
Burma.

    Question 6. Prior to President Obama's October 7, 2016, Executive 
Order (Termination of Emergency with Respect to the Actions and 
Policies of the Government of Burma), did you or anyone in the State 
Department's Bureau of East Asian and Pacific Affairs (EAP) ever oppose 
policy options in which the United States could terminate the national 
emergency declared in Executive Order 13047 while, at the same time, 
retaining some sanctions against the Burmese military and military 
entities under Tom Lantos Block Burmese JADE (Junta's Anti-Democratic 
Efforts) Act of 2008 (Public Law 110-286) (the ``JADE Act'') or other 
existing authorities?

    Answer. I cannot comment specifically on internal Department 
deliberations, though as part of the interagency process the then-
administration, in consultation with Congress, evaluated a range of 
options to further U.S. interests in assisting Burma's transition 
toward a more open, inclusive, and democratic society. Significant 
restrictions remain in light of the continuing threat the Burmese 
military poses to Burma's current civilian administration and to the 
country's long-term prospects to complete a transition. The 
administration generally kept in place strict limitations on issuing 
visas to enter the United States to senior military officials and their 
families; restrictions on of U.S. assistance to Burma, particularly to 
its military; and an embargo on arms sales to Burma.

    Question 7. Given the Burmese military's subsequent October 2016 
campaign of murder and violence against the Rohingya and the Burmese 
military and security forces' August 2017 mass atrocities against the 
Rohingya, do you today, with the benefit and clarity of hindsight, 
believe it was premature to lift sanctions against the Burmese 
Government, including the Burmese military and Burmese military 
entities and owned enterprises, in October 2016?

    Answer. In October 2016, in response to the country's election of 
its first civilian government in over 50 years and initial steps that 
government took with regard to human rights, President Obama, in 
consultation with Congress, terminated the national emergency with 
respect to Burma and took other measures related to financial sanctions 
on Burma.
    Improving the conditions and future prospects of people across 
Burma, and efforts to prevent continued abuses by the Burmese military, 
depend on Burma evolving to a more open and democratic system of 
governance with civilian control of the military and strong 
institutions to enforce the rule of law. Accordingly, the 
administration continues to focus on helping the elected government of 
Burma successfully transition to full democracy, deliver good 
governance, end impunity, and improve human rights practices.
    Significant restrictions remain in place in light of the continuing 
threats the Burmese military poses to Burma's current civilian 
administration and populations across Burma, including Rohingya. The 
administration has generally kept in place strict limitations on 
issuing visas to enter the United States to senior military officials; 
restrictions limiting the types of U.S. assistance to Burma, 
particularly to its military; and an embargo on arms sales to Burma. 
The administration has also sanctioned military personnel and entities 
?for their role in abuses committed again Rohingya and other ethnic 
minorities.

    Question 8. When, after President Obama's October 7, 2016, 
Executive Order (Termination of Emergency with Respect to the Actions 
and Policies of the Government of Burma), the Burmese military engaged 
in a campaign of violence against the Rohingya--which ultimately led to 
the displacement of over 87,000 refugees into Bangladesh--did any 
Bureau or official in the State Department recommend or otherwise 
suggest that the United States should consider reimposing some targeted 
sanctions against the Burmese military or its military leaders?

    Answer. Yes.

    Question 9. After the Burmese military's October 2016 campaign of 
violence against the Rohingya, were you involved in any discussions or 
decisions about whether or not to reimpose targeted sanctions against 
the Burmese military or its military leaders? If so, what policy 
options did you personally advocate?

    Answer. I cannot comment specifically on internal Department 
deliberations, but in my role as Deputy Assistant Secretary for 
Southeast Asia, which I began in April 2016, I worked with Department 
and interagency colleagues to shape policies that use the full range of 
tools available to advance U.S. national interests in Burma?. To date, 
results have included the use of targeted sanctions on military 
personnel and entities.

    Question 10. Did the State Department's Bureau of East Asian and 
Pacific Affairs (``EAP'') recommend to the Secretary of State any 
specific options in response to the Burmese military's October 2016 
campaign of violence against the Rohingya?

    Answer. I cannot comment specifically on internal Department 
deliberations, but the Bureau has worked with other Department entities 
and the interagency to shape policies that use the full range of tools 
available to the United States to support Burma's political and 
economic reforms; contribute to national reconciliation; encourage 
government transparency, and promote accountability and institutions; 
empower local communities and civil society; urge responsible 
international engagement; and strengthen respect for and protection of 
human rights, including freedom of religion or belief.

    Question 11. Did EAP advocate against the re-impose targeted 
sanctions against the Burmese military or its military leaders in 
response to the Burmese military's October 2016 campaign of violence 
against the Rohingya?

    Answer. I cannot comment specifically on internal Department 
deliberations, but the Bureau has consistently worked with other 
Department entities and the interagency to shape policies that use the 
full range of tools available to the United States to support Burma's 
political and economic reforms; contribute to national reconciliation; 
encourage government transparency, and promote accountability and 
institutions; empower local communities and civil society; urge 
responsible international engagement; and strengthen respect for and 
protection of human rights, including freedom of religion or belief.

    Question 12. Do you, with the clarity of hindsight, today believe 
that if the United States would have re-imposed targeted sanctions 
against the Burmese military and its military leaders in response to 
the Burmese military's October 2016 campaign of violence against the 
Rohingya, this course of action could have contributed to deterring or 
preventing the Burmese military's subsequent escalation in violence, 
including the Burmese military and security forces' August 2017 mass 
atrocities against the Rohingya?

    Answer. Atrocities committed in Rakhine State, ongoing violence in 
Kachin and Shan States, and continuing human rights concerns across 
Burma are reprehensible, regardless of who is in leadership in Burma. 
These issues are rooted in decades-old conflicts that festered under 
successive repressive and isolationist military dictatorships, even 
during periods of broad U.S. and international sanctions. Burma's 
continued transition to democracy offers an important path toward a 
better future for all of the country's diverse peoples. In consultation 
with Congress, we will continue to seek a successful and complete 
transition to democracy in Burma, using the full range of tools 
available to us, so that its government will deliver good governance, 
end impunity, and improve human rights practices.

    Question 13. Were you, in your capacity as Deputy Assistant 
Secretary of State for Southeast Asia, aware of any strategic, 
tactical, and operational warning signals of an imminent threat to the 
Rohingya prior to the Burmese military and security forces' August 2017 
mass atrocities against the Rohingya? If so, what were they?

    Answer. Successive administrations have raised concerns about and 
taken actions with regard to the despicable treatment of ethnic 
Rohingya. Although Rohingya have been vulnerable to, and victims of, 
violence for decades, the scale of abuses and degree of insecurity that 
arose in late 2017 were without precedent. Attacks on August 25, 2017 
by the Arakan Rohingya Salvation Army (ARSA) on Burmese security forces 
also contributed to further insecurity in Rakhine State.

    Question 14. What course of action, if any, did you advocate for in 
the State Department to prevent the escalation of violence by Burmese 
military and security forces against Rohingya in August 2017?

    Answer. On the day of Arakan Rohingya Salvation Army (ARSA) attacks 
in Rakhine State on Burmese security forces, the Department issued a 
statement that condemned the deadly violence, and called upon the 
Government and security forces to prevent further violence in a way 
consistent with the rule of law while protecting human rights and 
avoiding inflaming the situation. Our Embassy in Rangoon, our Mission 
to the United Nations, and senior U.S. officials immediately and have 
continuously called upon the Government and the security forces to end 
violence, respect human rights, and hold those responsible for 
atrocities to account. I worked in the Department with colleagues to 
utilize all options available to stem further violence and ease 
sufferings of victims. My own specific actions following the August 
violence included meeting the Ambassador of Burma at the Department and 
visiting Naypyitaw and Rakhine State to communicate our messages on 
violence directly to authorities and other stakeholders. I have also 
continuously supported efforts to encourage likeminded countries and 
Burma's neighbors to engage with the Government to end violence, grant 
humanitarian and media access, and investigate and hold accountable 
those responsible for atrocities.

    Question 15. At what point did you become aware of the full scope 
and scale of the Burmese forces' attacks against the Rohingya starting 
in August 2017?

    Answer. Following Arakan Rohingya Salvation Army (ARSA) attacks on 
Burmese security forces, and subsequent Burmese military operations, 
large waves of Rohingya refugees crossing the border into Bangladesh 
were one of the first true measures of the scope and scale of the 
atrocities. I visited Naypyitaw and Rakhine State in September 2017 to 
communicate directly to senior authorities and other stakeholders our 
concerns and to urge immediate actions to end the violence and to 
protect vulnerable populations.
    Without unhindered access to northern Rakhine State and a full, 
impartial international investigation into the atrocities that began in 
August 2017, the United States will not have a fully complete 
understanding of the full scope and scale of the violence that occurred 
in Rakhine State.
    Nonetheless, the Department used available information to conclude 
that ethnic cleansing had occurred in Rakhine State. In an effort to 
understand better the dimensions of the crisis, the Department 
initiated the Rakhine State Documentation Project to compile further 
information about the abuses and inform U.S. policymakers.

    Question 16. What is your assessment of the nature and scale of the 
attacks against the Rohingya population? How many people were killed? 
How were they killed?

    Answer. Without unhindered access to northern Rakhine State and a 
full, impartial international investigation into the atrocities that 
began in August 2017, the United States will not have a fully complete 
understanding of how many were killed during the violence that occurred 
in Rakhine State. Nonetheless, ?the exodus of over 700,000 Rohingya to 
Bangladesh, and others displaced internally, clearly indicates a high 
degree of violence and insecurity as result of Burmese military 
operations as well as attacks by the Arakan Rohingya Salvation Army 
(ARSA).
    Due to ongoing access restrictions in northern Rakhine State, 
information is difficult to obtain. One of the best sources of 
information are Rohingya refugees now in Bangladesh. In recognition of 
this, the Department initiated the Rakhine State Documentation Project 
to compile information about abuses and inform U.S. policymakers. The 
documentation project found that a substantial majority of refugees 
interviewed had witnessed killings and sexual violence.

    Question 17. Do you assess that the Burmese military and security 
forces, in their campaign of violence against the Rohingya that began 
in August 2017, committed ethnic cleansing?

    Answer. The U.S. Government has characterized the atrocities that 
took place in northern Rakhine State since August 2017 as ``ethnic 
cleansing.'' This conclusion of ethnic cleansing in no way prejudices 
any potential further determination on whether other mass atrocities 
have taken place, including genocide or crimes against humanity. We 
continue to review and analyze new evidence and information as it comes 
to light.

    Question 18. Do you assess that the Burmese military and security 
forces, in their campaign of violence against the Rohingya that began 
in August 2017, committed crimes against humanity?

    Answer. The U.S. Government has characterized the atrocities that 
took place in northern Rakhine State since August 2017 as ``ethnic 
cleansing'' and continues to review and analyze new evidence and 
information as it comes to light. This conclusion of ethnic cleansing 
in no way prejudices any potential further determination on whether 
other mass atrocities have taken place, including genocide or crimes 
against humanity.

    Question 19. Do you assess that the Burmese military and security 
forces, in their campaign of violence against the Rohingya that began 
in August 2017, committed genocide?

    Answer. The U.S. Government has characterized the atrocities that 
took place in northern Rakhine State since August 2017 as ``ethnic 
cleansing'' and continues to review and analyze new evidence and 
information as it comes to light. This conclusion of ethnic cleansing 
in no way prejudices any potential further analysis on whether other 
mass atrocities have taken place, including genocide or crimes against 
humanity.

    Question 20. Has the State Department's Bureau of East Asian and 
Pacific Affairs (``EAP'') made any recommendation to the Secretary of 
State on whether or not the Burmese military and security forces' 
crimes, violence and mass atrocities against the Rohingya that began in 
August 2017 amount to genocide? If not, why have you and EAP not made 
any recommendation to the Secretary of State on this matter?

    Answer. I cannot comment specifically on internal and ongoing 
Department deliberations, but Department colleagues, interagency 
officials, and I have continually aimed to shape policies that use the 
full range of tools available to the United States to ease suffering, 
address root causes of violence, and attain justice for victims using 
the best evidence and analysis available to us. Last year, with EAP 
support, the Department concluded that the situation in Burma's 
northern Rakhine State constituted ethnic cleansing against Rohingya. 
This conclusion of ethnic cleansing in no way prejudices any potential 
further analysis on whether other mass atrocities have taken place, 
including genocide or crimes against humanity. EAP has consistently 
advocated and ensured that human rights remain a top priority in the 
formulation of policies to protect and advance our national interests 
with regard to Burma, including determinations on what abuses 
transpired in Rakhine State and targeted sanctions to bring about 
accountability for them.

    Question 21. What is your current assessment of the impact of 
Chinese influence on the Cambodian Government and the Cambodian people?

    Answer. We have noted the increasing influence of China in 
Cambodia, and are very concerned about reports of the possible 
establishment of a Chinese military base in Cambodia, which would be 
prohibited by the Cambodian constitution. Such an action would 
undermine regional stability, Cambodia's democratic development, and 
raise concerns rule of law and national sovereignty. If confirmed, I 
will consistently underscore to the Cambodian Government and Cambodian 
people the importance of a free and open Indo-Pacific in which, as Vice 
President Pence said, ``nations large and small can prosper and 
thrive'' and where each nation ``chooses to respect its neighbors' 
sovereignty; embrace free, fair, and reciprocal trade; uphold human 
rights and freedom.''

    Question 22. If confirmed, under your leadership what would the 
U.S. Embassy in Phnom Penh do differently to address Cambodia's pivot 
to China?

    Answer. If confirmed, I will continue the Embassy's work to focus 
on how the United States and Cambodia can work together to advance 
shared goals, such as democracy, freedom, economic prosperity, and 
regional stability. I will engage like-minded partners, civil society, 
the private sector, and multilateral institutions to promote the 
principles of a free and open Indo-Pacific that benefit Cambodia and 
the United States.

    Question 23. Do you believe that the atmosphere for free speech in 
Cambodia is under threat?

    Answer. In recent years, the Cambodian Government imposed severe 
restrictions on civil society organizations and forced the closure or 
sale of more than 30 independent media outlets. Many of our civil 
society partners have said they do not feel free to express themselves 
freely. The Cambodian Government has also prohibited Radio Free Asia 
and Voice of Americas from broadcasting on FM radio in Cambodia. If 
confirmed, I will advocate for the freedom of expression, including for 
the press, which is protected by Cambodia's constitution.

    Question 24. Do you believe that Cambodia is no longer has a 
pluralistic, free, independent, and vibrant media landscape?

    Answer. In recent years, the Cambodian Government imposed severe 
restrictions on civil society organizations and forced the closure or 
sale of more than 30 independent media outlets. Many of our civil 
society partners have said they do not feel free to express themselves 
freely. The Cambodian Government has also prohibited Radio Free Asia 
and Voice of America from broadcasting on FM radio in Cambodia. In 
previous years, Cambodia enjoyed a more vibrant free press and broader 
space for civil society. If confirmed, I will advocate for the freedom 
of expression, including for the press, which is protected by 
Cambodia's constitution.

    Question 25. If confirmed, will you use your position to advocate 
for the protection of freedom of speech and expression in Cambodia?

    Answer. Yes, if confirmed, I will continue to advocate for the 
freedom of expression, including for the press, which is protected by 
Cambodia's constitution.

    Question 26. Do you believe that persons in the Cambodian 
Government who are credibly shown to be complicit in gross human rights 
abuses or corruption should be prohibited from obtaining visas to 
travel to the United States under the Global Magnitsky Act?

    Answer. In June, the United States designated a senior security 
official under E.O. 13818, which implements the Global Magnitsky Human 
Rights Accountability Act. If confirmed, I will consider all options 
that could incentivize better behavior from Cambodian Government 
authorities. I am grateful for the many tools that Congress has 
provided us, including the Global Magnitsky Human Rights and 
Accountability Act.

    Question 27. If confirmed as Ambassador, what efforts will you 
undertake to press the Cambodian Government to release opposition 
leader Kem Sokha?

    Answer. The United States has repeatedly called for the Cambodian 
Government to release immediately and unconditionally CNRP opposition 
leader Kem Sokha; remove undue restrictions on the political 
opposition, including a ban on 118 opposition leaders from engaging in 
political activity; and initiate a meaningful process aimed at building 
genuine national reconciliation. If confirmed, I will continue to 
engage the Cambodian Government to urge that charges against Kem Sokha 
be dropped unconditionally and I will work with like-minded partners to 
reinforce that message.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            W. Patrick Murphy by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Tackling human rights and democracy challenges has defined 
my career. I have served in, and guided relations with, numerous 
countries struggling under authoritarian rule, conflict, or fragile 
transitions--circumstances that eroded civil liberties and 
democratization. I have therefore prioritized unambiguous messaging on 
core principles; consulted civil society, likeminded countries, and 
relevant international organizations; and, in collaboration with 
Congress, contributed to developing sanctions and restrictions on 
travel and assistance. Results are not always readily apparent, but I 
am proud of my contributions to shelter nearly one million refugees in 
Guinea, negotiate peace in conflict-torn Sierra Leone, defend the 
rights of HIV-afflicted women in Lesotho, assist vulnerable minorities 
in war-torn northern Iraq, protect Chinese and North Korean dissidents, 
and help to restore the freedoms of citizens under non-democratic 
rulers across Southeast Asia. I was recognized as the Department of 
State's runner-up for the 2005 Democracy and Human Rights Award for 
efforts to support Burmese suffering under decades of military rule and 
to protect the country's highly repressed ethnic Rohingya, efforts that 
I continue to this day.

    Question 2. What are the most pressing human rights issues in 
Cambodia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Cambodia? What do 
you hope to accomplish through these actions?

    Answer. The United States is very concerned by the setbacks to 
democracy and human rights in Cambodia over the past couple of years. 
In advance of 2018 elections, the ruling Cambodian People's Party (CPP) 
took a number of steps to marginalize the political opposition, 
including by dissolving the Cambodia National Rescue Party (CNRP), 
imprisoning its leader Kem Sokha on spurious treason charges, and 
banning 118 CNRP officials from engaging in politics for five years. 
The Government also imposed restrictions on civil society organizations 
and forced the closure or sale of more than 30 independent media 
outlets.
    The United States has repeatedly called for the Cambodian 
Government to immediately and unconditionally release Kem Sokha; remove 
restrictions on the political opposition, including the ban on 118 
opposition leaders from engaging in political activity; and initiate a 
meaningful process aimed at building genuine national reconciliation. 
We have also urged the Government to remove restrictions on civil 
society and independent media, which are critical in any democracy. If 
confirmed, I will continue to urge the Cambodian Government to take 
these steps and will work with like-minded partners to encourage 
Cambodia's leaders to fulfill their commitments under the Cambodian 
constitution and the Paris Peace Accords.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Cambodia in 
advancing human rights, civil society, and democracy in general?

    Answer. New government-imposed restrictions as well as the ruling 
party's near-absolute control over government institutions, the 
judiciary, and the security services have unduly limited the space for 
civil society and free expression. This creates challenges for civil 
society and independent media to carry out their mission and to express 
views critical of the Government, ruling party, or leadership.
    If confirmed, I am committed to finding ways to continue actively 
supporting democracy, good governance, and human rights in Cambodia, 
including through State Department and USAID programs and by working 
with like-minded partners to ensure the Cambodian leadership respects 
the freedoms enshrined in the Cambodian constitution and the 
commitments made in the Paris Peace Accords.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Cambodia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. The State Department regularly engages human rights, civil 
society, and other non-governmental organizations both in the United 
States and in Cambodia. I am fully committed to continuing that 
engagement, if confirmed.
    Embassy Phnom Penh has a robust Leahy vetting program. If 
confirmed, I will ensure our Leahy team continues to thoroughly vet all 
Cambodian security and law enforcement officials that could benefit 
from U.S. security assistance to make sure they have not engaged in any 
form of human rights abuse.

    Question 5. Will you and your embassy team actively engage with 
Cambodia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Cambodia?

    Answer. The United States has and will continue to engage Cambodia 
on cases of political prisoners, like Kem Sokha. If confirmed, I will 
continue to urge the Cambodian Government to drop all charges against 
Kem Sokha, release him and other political prisoners, and remove undue 
restrictions on his and others' human rights.

    Question 6. Will you engage with Cambodia on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. The United States has repeatedly called the Cambodian 
Government to respect human rights, including civil rights, and ensure 
good governance by restoring democratic institutions. If confirmed, I 
will continue to actively engage this issue.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I am committed to complying with all relevant federal 
ethics laws, regulations, and rules, and to raising any concerns 
through the appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I am committed to complying with all relevant federal 
ethics laws, regulations, and rules, and to raising any concerns 
through the appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Cambodia?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence in Cambodia; 
however, these funds are exempt from the conflict of interest laws. I 
am committed to ensuring that my official actions will not give rise to 
a conflict of interest and I will remain vigilant with regard to my 
ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I firmly agree that diversity improves creativity and 
productivity and, for the Foreign Service, improves America's 
diplomatic strength. If confirmed, I will ensure that Embassy 
supervisors consider our diversity goals in the recruitment and hiring 
of new employees. I will work closely with relevant Embassy officers 
and staff-including the Deputy Chief of Mission, the Management 
Officer, the Community Liaison Office Coordinator, Equal Employment 
Opportunity counselors, and others-to ensure not only full compliance 
with U.S. laws and regulations, but also to implement any and all 
efforts to mentor American and local staff and to foster a workplace 
and mission community that is fully inclusive of all groups and 
individuals.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Recently, Secretary Pompeo made it clear that 
discriminatory harassment and/or toxic behavior has no place in the 
work place, both domestically and in our diplomatic missions abroad. I 
commit fully to actively facilitating a work culture of civility and 
respect, using all appropriate guidance and tools available to hold 
supervisors accountable for upholding these principles. I also find 
strength in the diversity and inclusivity of our workspace and will 
ensure, if confirmed, that Embassy supervisors foster a work 
environment that embraces diversity of thought, background, and 
experience.

    Question 12. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Corruption remains a serious challenge, and hinders 
economic and political development in Cambodia. Some companies have 
engaged in opaque, non-competitive land and investment deals, a 
particular problem that fuels political corruption in Cambodia. If 
confirmed, I will actively urge the Cambodian Government to ensure 
transparency and accountability in all investment deals and 
transactions, and to ensure that U.S. companies are not unfairly 
disadvantaged in any tender or contract process.

    Question 13. What is your assessment of corruption trends in 
Cambodia and efforts to address and reduce them by the Government of 
Cambodia?

    Answer. Systemic corruption is a major obstacle to Cambodia's 
political and economic development. The Government has taken some steps 
to address this issue, including by establishing an Anti-Corruption 
Unit, but these efforts to date have not been effective in stamping out 
rampant corruption. If confirmed, I will urge the Cambodian Government 
to increase transparency and accountability.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Cambodia?

    Answer. If confirmed, I would leverage U.S. Government resources, 
including State Department and USAID programs, to support civil society 
organizations and NGOs in addressing corruption issues and increasing 
government transparency. I would also make these issues a priority in 
engaging government authorities.

    Question 15. Over Hun Sen's past 34 years in power, Hun Sen has 
consolidated power through the CPP through undemocratic processes, 
including restrictions on opposition parties. If confirmed, will you 
commit to positioning the United States as a productive force in the 
fight for political pluralism, anti-corruption, and democratic 
elections in Cambodia?

    Answer. If confirmed, I am committed fully to fighting for a more 
pluralistic, transparent, and democratic Cambodia in accordance with 
the country's own constitution and as part of a free and open Indo-
Pacific. The United States has repeatedly called for the Cambodian 
Government to release immediately and unconditionally CNRP opposition 
leader Kem Sokha, remove burdensome restrictions on the political 
opposition, including a ban on 118 opposition leaders from engaging in 
political activity, and initiate a meaningful process aimed at building 
genuine national reconciliation. We have also urged the Government to 
remove restrictions on civil society and independent media, which are 
critical in any democracy. If confirmed, I will urge the Cambodian 
Government to take these steps and will work with like-minded partners 
to encourage Cambodia's leaders to fulfill their commitments under the 
country's constitution and the Paris Peace Accords.

    Question 16. Under Hun Sen's regime, and particularly ahead of 
elections in 2017 and 2018, grassroots human rights organizations have 
documented a continued and concerted attack on human rights, including 
freedom of expression, association, and assembly. Amid this crackdown, 
human rights defenders have experienced increasing levels of state 
harassment, including those persons advocating against land grabs and 
corrupt trade arrangements. If confirmed, will support and advocate 
against repressive laws and highly restrictive amendments--including 
the Law on Associations and Non-Governmental Organizations (LANGO) and 
the Law on Political Parties--that perpetuate an enabling environment 
for human rights abuses in your post?

    Answer. Supporting democracy and human rights are always important 
aspects of U.S. foreign policy, as highlighted by the new Indo-Pacific 
Transparency Initiative that the Vice President announced on November 
17. In Cambodia, political opposition parties and our civil society 
partners have raised many concerns regarding the Law on Associations 
and Non-Governmental Organizations (LANGO) and the Law on Political 
Parties including undue financial reporting requirements, registration 
of new organizations any time already registered organizations work 
together, and the requirement to notify authorities of any planned 
activities three days in advance. The Cambodian Government recently 
announced that it will no longer require the three-day advance 
notification; we are monitoring full implementation of this guidance. 
If confirmed, I will continue to urge the Cambodian Government to roll 
back undue restrictions on civil society organizations and political 
parties to restore a more open, democratic Cambodia.

    Question 17. What are the specific actions that the U.S. Embassy in 
Cambodia will take to protect and support human rights defenders?

    Answer. Government-imposed restrictions and the ruling party's 
near-absolute control over public institutions, the judiciary, and 
security services have unduly limited the space for civil society and 
free expression. This creates challenges for civil society and 
independent media to carry out their mission and to express views 
critical of the Government, ruling party, or leadership.
    If confirmed, I am committed to actively supporting democracy, good 
governance, and human rights in Cambodia, including through State 
Department and USAID programs and by working with like-minded partners 
to ensure the Cambodian leadership respects the freedoms enshrined in 
the Cambodian constitution and the commitments made in the Paris Peace 
Accords. We will continue to urge that the Cambodian Government drop 
charges against and release all political prisoners, including those 
who fight for the human rights and fundamental freedoms guaranteed by 
Cambodia's constitution.

    Question 18. What levers does the U.S. Government have in 
pressuring Hun Sen to ease his campaign against human rights and civil 
society organizations?

    Answer. The United States uses a variety of tools to urge the 
Cambodian Government to restore democratic governance. The White House, 
State Department, and U.S. Embassy have all issued statements urging 
Cambodia to respect the rule of law and the freedoms enshrined in its 
Constitution. In June, the United States designated a senior Cambodian 
security official under E.O. 13818, which implements the Global 
Magnitsky Human Rights Accountability Act. We also implemented visa 
restrictions under Section 212(a)(3)(C) of the Immigration and 
Nationality Act for those undermining democracy in order to send a 
strong signal that the United States does not welcome those involved in 
anti-democratic actions in Cambodia. If confirmed, I will also continue 
to engage like-minded diplomatic partners to encourage the Cambodian 
Government to respect the civil and political rights of all.

    Question 19. In 2017 and 2018, the U.S. decided to suspend or 
curtail programs through Treasury, USAID, and military assistance that 
supported individuals and institutions complicit in human rights 
violations and corruption in the country. Do you believe targeted 
sanctions through levers like the Global Magnitsky Human Rights 
Accountability Act and cutting military aid can encourage a change in 
the Cambodian Government's behavior?

    Answer. The United States has available a variety of measures 
including targeted sanctions and adjustments to military aid that can 
be used to promote accountability for human rights abuse and corruption 
that undermines the values that form an essential foundation of stable, 
secure, and functioning societies; have devastating impacts on 
individuals; weaken democratic institutions; degrade the rule of law; 
perpetuate violent conflicts; facilitate the activities of dangerous 
persons; and undermine economic markets. In June, the United States 
designated Cambodian General Hing Bun Hieng for being the leader of an 
entity responsible for or complicit in, directly or indirectly, serious 
human rights abuse under E.O. 13818, which implements the Global 
Magnitsky Human Rights Accountability Act. Any assets Bun Hieng has 
within U.S. jurisdiction are blocked, and U.S. individuals and entities 
are generally prohibited from engaging in transactions with him. In 
order to enjoy a productive military-to-military relationship with the 
United States, the Cambodian Government must demonstrate greater 
progress in reversing its democratic backsliding.

    Question 20. How will you engage with the sanctions process and do 
you pledge to support these measures when credible information about 
abuses or corruption is provided to the U.S. Government?

    Answer. I pledge to consider all options that could incentivize 
better behavior from the Cambodian Government and security forces and, 
if confirmed, to support them where I see they can be most effective. I 
am grateful for the many tools that Congress has provided us, including 
the Global Magnitsky Human Rights and Accountability Act.

    Question 21. On November 16, the U.N.-backed Extraordinary Chambers 
in the Courts of Cambodia (ECCC) convicted three individuals of 
genocide committed under the Khmer Rouge regime. While the decision is 
historic, fissures remain between the collective consciousness of the 
Cambodian people and what the ECCC has been able to deliver in justice 
and accountability. After over a decade and more than $300 million, the 
ECCC sentenced just three defendants. Although the Court has assembled 
a remarkable historical record of crimes committed, the ECCC has 
struggled with cooperation from the Cambodian Government. If confirmed, 
how will you work to pursue accountability for crimes committed against 
Cambodians and ethnic Vietnamese under the Khmer Rouge in the face of 
Cambodian Government opposition to continued ECCC investigations?

    Answer. On November 16, the ECCC found former Khmer Rouge President 
Khieu Samphan and Pol Pot Deputy Nuon Chea guilty of genocide, crimes 
against humanity, and grave breaches of the Geneva Conventions in one 
of the most complex criminal cases since Nuremberg. Despite the long 
delay, the convictions by the ECCC provided justice for thousands of 
victims and opened the space for the people of Cambodia to address this 
tragic part of their past, seek justice and reparations, and 
demonstrate that those responsible for atrocity crimes will be held to 
account.
    If confirmed, I would encourage that we stress to the tribunal that 
it complete the remaining cases with all deliberate speed while 
ensuring the conclusion of the remaining cases on the basis of the 
facts and the law and that justice is served. It is important that the 
United States continue to support the tribunal as it completes its 
mandate to help ensure its orderly drawdown, including, in particular, 
the establishment of publicly-accessible court archives, which will 
preserve the historical record of the Khmer Rouge atrocities.

    Question 22. Given the ECCC's mixed record as a U.N.-backed hybrid 
court, do you believe the United States and international community 
should pursue a hybrid court model to seek accountability for crimes 
committed against the Rohingya?

    Answer. In Burma, the United States continues to call for 
accountability for those responsible for atrocities committed in 
Rakhine, Kachin, and Shan States. Our efforts to date include 
supporting the U.N. Fact Finding Mission; an independent mechanism to 
collect, consolidate, preserve, and analyze evidence; and the 
respective mandates for the U.N. Special Envoy to Myanmar and the U.N. 
Special Rapporteur on the Human Rights Situation in Myanmar. A hybrid 
court model could form another option for pursuing justice for crimes 
in Burma. A policy decision regarding what type of international 
justice mechanism the United States would support would need to take 
into account speed, cost, and efficacy, among other factors.

    Question 23. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Cambodia 
specifically?

    Answer. Corruption remains a serious challenge that hinders 
economic and political development in Cambodia. Some companies have 
engaged in opaque, non-competitive land and investment deals, a 
particular problem that fuels political corruption in Cambodia. If 
confirmed, I will actively urge the Cambodian Government to ensure 
transparency and accountability in all investment deals and 
transactions, and to ensure that U.S. companies are not unfairly 
disadvantaged in any tender or contract process.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             W. Patrick Murphy by Senator Edward J. Markey

    Question 1. In your testimony, you noted that as Deputy Assistant 
Security of the Bureau of East Asian and Pacific (EAP) Affairs, you 
were involved in the internal discussions on additional sanctions on 
senior level Burmese officials in response to the 2016 and 2017 attacks 
on Rohingya communities in Burma. Can you clarify what you recommended 
to the Secretary on whether to impose sanctions on senior level 
officials? Do you believe the U.S. should impose sanctions on 
Commander-in-Chief Min Aung Hlaing? If not, why not?

    Answer. I cannot comment specifically on internal Department 
deliberations, but Department colleagues and I have continually aimed 
to shape policies that use the tools available to the United States to 
ease suffering, address root causes of violence, and attain justice for 
victims using the best evidence and analysis available to us. We 
continue to promote accountability options to attain justice for 
victims of atrocities in Rakhine State and other areas in Burma.

    Question 2. Do you support the use of U.S. financial sanctions such 
as the Global Magnitsky Act against members of Hun Sen's inner circle 
and crony business supporters (specifically Lao Meng Khin and his wife 
Choeung Sopheap, Ly Yong Phat, Try Pheap and Mong Reththy) as a means 
of preventing them from benefiting from the proceeds of grand 
corruption, human rights abuses and stolen elections?

    Answer. In June, the United States designated a senior Cambodian 
security official under E.O. 13818, which implements the Global 
Magnitsky Human Rights Accountability Act. I am grateful for the many 
tools that Congress has provided us, including the Global Magnitsky 
Human Rights and Accountability Act. If confirmed, I will encourage 
consideration of all options that could incentivize better behavior 
from the Cambodian Government and support those that I assess can be 
most effective.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               W. Patrick Murphy by Senator Jeff Merkley

Documentation of Atrocities in Northern Rakhine State
        On September 24, 2018, the U.S. Department of State released 
        its ``Documentation of Atrocities in Northern Rakhine State'' 
        Report.
    Question 1. According to a press report1, the State Department 
Bureau of East Asia and Pacific Affairs (EAP) recommended against 
making a determination of ``genocide,'' for fear that such a move would 
drive the Government of Burma closer to China. Was that a correct 
characterization of EAP's position?

    Answer. U.S. efforts have been and remain focused on steps to 
improve the situation for Rohingya refugees, internally displaced 
persons (IDPs), and all people in Burma. In the wake of the horrific 
acts committed against the Rohingya, the Department has pursued a 
three-pronged strategy to ease humanitarian suffering, address the root 
causes of violence, and hold accountable those responsible for 
atrocities. In this regard, we seek to work with likeminded countries 
to amplify these efforts.

    Question 2.  Do you help make this recommendation from EAP and do 
you agree that the State Department should not make this determination?

    Answer. I cannot comment specifically on internal Department 
deliberations, but Department colleagues and I have continually aimed 
to shape policies that use the full tools available to the United 
States to ease suffering, address root causes of violence, and attain 
justice for victims using the best evidence and analysis available to 
us. Last year, the Department concluded that the situation in Burma's 
northern Rakhine State constituted ethnic cleansing against Rohingya. 
This conclusion of ethnic cleansing in no way prejudices any potential 
further analysis on whether other mass atrocities have taken place, 
including genocide or crimes against humanity.

    Question 3.  On August 28th, U.S. Ambassador to the United Nations, 
Nikki Haley, previewed that the U.S. Report was ``consistent'' with the 
findings of the U.N. Fact Finding Mission Report. However, the U.S. 
Report did not reach the same conclusion of the U.N. Fact Finding 
Mission, which said that acts of ``ethnic cleansing'' with ``genocidal 
intent'' occurred. What additional witness testimony or evidence is 
required for the United States to arrive at the same determination of 
the U.N.?

    Answer. Last year, the Department concluded that the situation in 
Burma's northern Rakhine State constituted ethnic cleansing against 
Rohingya. This conclusion of ethnic cleansing in no way prejudices any 
potential further analysis on whether other mass atrocities have taken 
place, including genocide or crimes against humanity. The Department 
has thoroughly reviewed the U.N. Fact Finding Mission's (FFM) report, 
and has strongly supported the FFM's mandate. Further, we have ensured 
that the FFM was able to publicly brief the U.N. Security Council a 
month ago, despite opposition from some member states.
    The Documentation Report produced by the State Department was not 
meant to serve as the basis for a particular legal finding, but rather 
as a means to gather and organize information about the atrocities in 
northern Rakhine State since 2016. Ambassador Haley's reference to 
consistency between the two reports means just that--the information 
gathered in the two reports is broadly consistent. We continue to 
review all evidence, reports and analysis, including the reports and 
analysis released on December 3 by the United States Holocaust Memorial 
Museum and the Public International Law & Policy Group.

    Question 4.  Would the United States support the establishment of 
an International, Impartial, and Independent Mechanism (IIIM) to gather 
further evidence of crimes to build a case for potential future 
prosecutions?

    Answer. A key recommendation from the FFM was to establish an 
initiative to collect, preserve, and catalog evidence of atrocities and 
other crimes in northern Rakhine State akin to an IIIM. In support of 
this recommendation, in November we co-sponsored and voted for a U.N. 
General Assembly Third committee resolution that called for the 
immediate operationalization of a mechanism, which was created by the 
U.N. Human Rights Council in September of this year. Going forward, the 
Department will work to support this initiative so that it can have the 
strongest impact toward advancing accountability.

    Question 5.  On December 3, 2018, the United States Holocaust 
Museum said that ``there is compelling evidence that the Burmese 
military committed crimes against humanity, and genocide against the 
Rohingya,'' citing the U.N. Fact Finding Mission Report, U.S. State 
Department Report, and a Report led by the Holocaust Museum and Fortify 
Rights. Why does the United States disagree with their findings?

    Answer. The U.S. Government characterized the atrocities that took 
place in northern Rakhine State as ``ethnic cleansing'' in November 
2017, and since then has continued to review and analyze new evidence 
and information as it comes to light. The underlying information and 
findings of the State Department's report, along with a variety of 
other credible reports, provide information to Secretary Pompeo and the 
Department as the U.S. Government seeks to advance accountability and 
prevent future atrocities in Burma.

    Question 6. The United States Treasury Department announced in 
August 17, 2018, that it had sanctioned four Burmese military and 
Border Guard Policy (BGP) commanders and two Burmese military units, 
pursuant to the Global Magnitsky Human Rights Accountability Act of 
2016. Would you recommend the United States sanction other senior 
military leaders, as is recommended by the U.N. Fact Finding Mission, 
to include the Commander in Chief of the Myanmar Armed Forces, Min Aung 
Hlaing?

    Answer. The Department of State has played an important role within 
the interagency process in identifying and sanctioning those 
responsible for abuses against the Rohingya people. We will continue to 
evaluate all avenues to promote accountability.

    Question 7. Has the State Department made specific recommendations 
to Treasury about individuals to sanction in Burma that have not yet 
been implemented? If not, why?

    Answer. I cannot discuss potential or ongoing sanctions 
investigations.

    Question 8. What additional accountability measures do you believe 
would be appropriate for the United States to take in response to the 
ethnic cleansing against the Rohingya?

    Answer. The United States continues to pursue accountability for 
those responsible for the violence and atrocities in Rakhine, Kachin, 
and Shan States. We also have consistently called for the establishment 
of civilian control of the Burmese armed forces. We have worked closely 
with our allies and partners to support efforts and mechanisms at the 
U.N. to foster accountability for human rights abuses in Rakhine State 
and other areas of Burma. These efforts include the U.N. Fact Finding 
Mission; an independent mechanism to collect, consolidate, preserve, 
and analyze evidence; and the mandates for the U.N. Special Envoy to 
Myanmar and the U.N. Special Rapporteur on the Human Rights Situation 
in Myanmar. We will continue our efforts in this regard, pursuing 
additional accountability measures as appropriate for the atrocities 
committed in Rakhine State.

    Question 9. Do you believe that U.S. support of Burma's democratic 
transition must not be used as justification for not aggressively 
pursuing accountability for crimes committed against the Rohingya and 
other ethnic minorities in Burma?

    Answer. We are committed to pursuing both goals at once: supporting 
Burma's democratic transition and pursuing accountability for human 
rights violations and abuses committed against Rohingya, other ethnic 
and religious minorities, and all others in Burma. Empowering Burma's 
democratic institutions is key to addressing longstanding underlying 
challenges following some fifty years of authoritarian military rule. 
We are focused on helping the elected government of Burma successfully 
transition to full democracy, deliver good governance, end impunity, 
and improve human rights practices.
    Ultimately, improving the current conditions and future prospects 
of the people of Burma--including the 500,000-600,000 Rohingya 
remaining in Rakhine State and the nearly one million Rohingya seeking 
refuge in Bangladesh--depends on Burma transitioning to a more open and 
democratic system of governance. We continue to raise concerns 
regarding the Government's human rights record, including with respect 
to fundamental freedoms and the rights of members of minority 
communities, and we stress the need to hold accountable those persons 
who commit atrocities in Rakhine State and elsewhere.

    Question 10. Will the United States continue to insist that all 
parties uphold the principle of non-refoulement governing the return of 
Rohingya refugees to Burma consistent with international humanitarian 
law?

    Answer. The Department will continue to vigorously support the 
principle of non-refoulement regarding the possible repatriation of 
Rohingya refugees. We continue to insist that both the Governments of 
Bangladesh and Burma ensure that any repatriations are voluntary, safe, 
sustainable, and dignified.

    Question 11. Specifically, what progress has the Government of 
Burma made in implementing the Kofi Annan-led Advisory Commission 
Recommendations, particularly as they relate to freedom of movement, 
access to services, documentation, and livelihood opportunities?

    Answer. The Government of Burma independently established the 
Rakhine Advisory Commission (RAC), prior to the events of August 2017 
and as a means to address root causes of violence and discrimination, 
and accepted all of its recommendations. The Government has made 
limited progress in implementing some of the 88 RAC recommendations, 
but not on some of the more crucial recommendations, including those 
related to freedom of movement, civil documentation, a transparent 
pathway to citizenship, and access to livelihoods. We continue to urge 
the Government to make greater and more rapid progress on all 
recommendations and coordinate with likeminded countries to advance our 
advocacy efforts. Further, we are partnering with members of the local 
communities of Rakhine State to advance intercommunal reconciliation 
and trust-building efforts to improve the lives of those Rohingya 
remaining in Rakhine State and other vulnerable populations there. This 
is a necessary step to prepare for the eventual voluntary repatriation 
of Rohingya refugees from Bangladesh.



                               __________

                              NOMINATIONS

                              ----------                              


                   TUESDAY, DECEMBER 4, 2018--(P.M.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Gardner, Young, Barrasso, 
Menendez, Cardin, Murphy, Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations committee will come to 
order.
    I know we have a number of my friends here in pink. Good to 
be with you. I thank you all for respecting democracy and 
respecting the fact that other people here want to be able to 
hear what is happening. I will say this one more time. I have 
in the past said that I am able to unarrest people when they 
have been arrested. I no longer have the ability to do that. So 
I would just hope that everybody would remain quiet and 
respectful. We have some outstanding nominees here today that 
we want to hear from.
    We are going to hold a nomination hearing for four 
positions. Our nominees today are Arthur B. Culvahouse, to be 
Ambassador to Australia; the Honorable Carol Perez, to be 
Director General of the Foreign Service; Christopher Henzel, to 
be Ambassador to Yemen; John Barsa, to be Assistant 
Administrator of USAID for Latin America and the Caribbean; 
Sarah-Ann Lynch, to be Ambassador to Guyana; and Lynn Tracy, to 
be Ambassador to Armenia.
    First, however, we have a very distinguished guest, one of 
my best friends in the Senate. He has served our State with 
distinction in many ways. He is here to introduce a great 
friend of both of ours, and out of respect for him so that he 
can go on about other business today, we are going to call on 
him first before we make opening comments. With that, we 
welcome the Great Lamar Alexander from Tennessee.

              STATEMENT OF HON. LAMAR ALEXANDER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Senator Corker. It is good to 
be in your committee. Senator Menendez, Senator Cardin, Senator 
Barrasso.
    It is my privilege today to introduce to the committee 
Arthur B. Culvahouse, Jr., and I am going to do that by saying 
a few words about him and a few words about the country that 
President Trump has nominated him to be the Ambassador to.
    First, about A.B. Culvahouse, Jr. He is the most 
accomplished lawyer I know, and I do not know many of any 
public servants more accomplished than he is. That may sound 
like an extravagant claim, but I mean it sincerely.
    He had the great advantage of being born and raised in Ten 
Mile, Tennessee. So that got him off to a good start.
    Then he went to the University of Tennessee where, 
according to the professors there, he had the highest grades in 
finance of anybody and that lasted for a long time.
    He was selected as a Root-Tilden Scholar at New York 
University Law School, which is sort of a public service 
scholarship for outstanding students who want to practice law 
in the grand manner.
    He became Legislative Counsel to Howard Baker, our Senator, 
who later became Majority Leader of the United States Senate 
and whose daughter is in the audience today.
    He became counsel to both John McCain and Donald Trump 
during their campaigns as they began to consider vice 
presidential selections.
    He was counsel to President Ronald Reagan while he was in 
the White House.
    And in the midst of all of that, he has been the chairman 
of one of the world's largest law firms, O'Melveny & Myers.
    I will not read all the other activities that he has had, 
but they are enough to establish him as enormously well 
qualified for this position.
    He was awarded by President Reagan the President's Citizens 
Medal, an award established in 1969 to recognize citizens who 
perform exemplary deeds of service.
    He was a member of the President's Foreign Intelligence 
Advisory Board and the Intelligence Oversight Board, the U.S. 
Chamber of Commerce Commission on Regulation of U.S. Capital 
Markets, Board of Visitors of the U.S. Naval Academy, a member 
of the Board of Trustees of the Brookings Institution, and 
Howard H. Baker, Jr. Center for Public Policy at the University 
of Tennessee.
    So he is enormously well qualified. That is my comment 
about A.B. Culvahouse, Jr.
    Now, a short comment about Australia, a country to which he 
has been nominated to be Ambassador.
    My family lived there in 1987 for 6 months, and at a dinner 
there, I heard the Governor General of Australia talk about the 
relationship between the United States and his country. He 
said, it is a happy accident of faith that the Constitution of 
the United States was being signed in 1787 just as our first 
fleet was sailing eastward across the Atlantic from Rio to 
Capetown on the third leg of its 10-month long voyage. The 
fleet carried a cargo of convicts who would have been on their 
way to Georgia in the United States had not the American 
Revolution succeeded and denied the British the opportunity to 
send their prisoners to America.
    Then he went on. The links between our two nations, 
Australia and the United States, have evolved from earliest 
times. Our pioneers, like yours, were as unlikely a band as one 
could conceive. Your Gold Rush spilled into ours. Our 
constitution has been built on yours. Our soldiers have died 
together, and we have shared freedoms of speech and of 
association and of laws and of humanities and of civil 
liberties. And now both of us are a melting pot. This is the 
Governor General of Australia speaking. We read your prose. We 
speak your poetry. We watch your plays and films. We even watch 
your terrible television dramas.
    Mr. Chairman, the English are our ancestors. The 
Australians are our cousins. And I would suggest they are our 
first cousins. They deserve to have, as the representative of 
our country to them, one of our finest. I believe that A.B. 
Culvahouse, Jr. is one of the finest public servants we have. I 
hope he is confirmed rapidly by this committee and by the full 
Senate.
    And the only other thing I would say is that I am more than 
a little jealous that he is the Tennessean who gets to be the 
Ambassador to Australia. If he is confirmed by the Senate, 
which I hope he will be, he will have a wonderful experience 
ahead of him.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    With that, you are welcome to--we understand you are very, 
very busy and would like to leave. [Laughter.]
    The Chairman. I would like to also, before opening 
comments, recognize the fact that Darrell Issa is here. He has 
been nominated to be USTDA head, and at some point, hopefully 
soon, that will be taken up.
    Today, as I mentioned, we will consider the nominations of 
six individuals to serve our nation both at home and abroad in 
a variety of important positions. We welcome all of you here 
and thank you for your willingness to serve. Thank you very 
much.
    First, we have Mr. Arthur B. Culvahouse of Tennessee to 
serve as Ambassador to Australia. Mr. Culvahouse brings with 
him a wealth of experience in both government and the private 
sector. He previously served as top aide to U.S. Senator Howard 
Baker and as the White House Counsel to President Reagan, and 
for decades, he practiced law with the firm of O'Melveny & 
Myers where he is currently Chair Emeritus and Of Counsel.
    Through his work on various presidential advisory boards, 
numerous nonprofits, and countless political campaigns, Mr. 
Culvahouse has gained a reputation as a person of integrity and 
of great intellect. It is a personal honor for me that I am 
able to call him my friend, and I know he will represent our 
nation well in Canberra.
    Next, we have Ambassador Carol Perez to serve as Director 
General of the Foreign Service and Director of Human Resources 
at the Department of State. While much of the attention usually 
given this position focuses on the role it plays in relation to 
Foreign Service, this position is also the Chief Human 
Resources Officer for Civil Service. Thank you.
    Ambassador Perez is a career member of the Foreign Service 
and currently serves as our Ambassador in Santiago, Chile where 
she has been stationed since 2016.
    Having previously served as the U.S. Consul General in 
Milan and Principal Deputy Assistant Secretary in the Human 
Resources Bureau, Ambassador Perez is amply familiar with the 
bureau she will be heading and brings with her a variety of 
State Department management experience as she takes on her new 
role.
    Next we have Mr. Christopher Henzel to be Ambassador to 
Yemen. Mr. Henzel is also a career member of the Foreign 
Service and has completed numerous tours across the Middle 
East. Currently he serves as Deputy Chief of Mission at our 
embassy in Riyadh, Saudi Arabia, and as the post to Yemen is 
currently based in Saudi Arabia, he is already familiar with 
the environment where the mission he is headed for is located.
    Having viewed the conflict in Yemen from inside the Kingdom 
for the last 2 years, Mr. Henzel brings with him a unique 
perspective and a wealth of knowledge both of the conflict and 
of Saudi Arabia's influence in the country.
    Accepting this position is a great responsibility. Mr. 
Henzel will have to navigate the political and social 
complexities of this region in an effort to bring peace to this 
war-ravaged nation.
    Next, we have Mr. John Barsa to serve as Assistant 
Administrator of USAID for Latin America and the Caribbean. Mr. 
Barsa currently serves as the Acting Assistant Secretary of 
Homeland Security in the Office of Public Liaison, and he 
previously served in the U.S. Army Reserve until his honorable 
discharge in 1996.
    Before joining the current administration, Mr. Barsa led 
the strategic communications and business development efforts 
for various corporations and also served on the staff of former 
Congressman Lincoln Diaz-Balart.
    Mr. Barsa's family came to this country after fleeing 
oppression from Cuba. He has vast knowledge of Latin America 
and is a fluent Spanish speaker. As you can tell, I am not. 
[Laughter.]
    The Chairman. With his personal background and his 
experience in both government and the private sector, I believe 
he will be an asset to USAID in furthering its mission in Latin 
America and the Caribbean.
    Next, we have Sarah-Ann Lynch to be Ambassador to the Co-
operative Republic of Guyana. As career foreign officer 
currently serving as Senior Deputy Administrator in USAID's 
Bureau for Latin America and the Caribbean, I believe she has 
the experience and management skills necessary to serve as head 
of mission in Georgetown.
    Finally, we have Lynne Tracy to be Ambassador to Armenia. 
As a career Foreign Service officer with deep experience in 
Eurasian affairs, I believe she will be an asset for the United 
States in the Caucasus.
    Our thanks to all of your for being here, and with that, I 
will turn to my friend, the ranking member, Bob Menendez, for 
any opening comments he wishes to have.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    First of all, there is no more room at the table to have 
the hearing. So we have maxed out on the number of nominees who 
are here.
    But we congratulate you all. It is an extremely impressive 
and distinguished panel of nominees from varied backgrounds and 
agencies. Among others, we have a U.S. Ambassador, a former 
Counsel to the President of the United States, a holder of the 
Secretary's Award for Heroism. So we thank you all for your 
service and your continued willingness to serve.
    Mr. Henzel, while we have serious challenges all over the 
world, I expect that you may receive more attention than some 
of your colleagues on this panel. As our Deputy Chief of 
Mission in Riyadh for the past 3 years, you have had a front 
row seat to the crisis in Yemen. You understand the dynamics, 
the states, the key actors, and I hope that you will be able to 
provide us some insight into the trajectory of U.S. policy 
towards Yemen and the Saudi coalition's efforts there.
    I hope you can provide some insight not just into the facts 
on the ground but what we assess to be our objectives and our 
specific diplomatic and political tools for achieving them. 
With more than 10,000 people dead, 14 million on the brink of 
starvation, millions displaced and suffering, the status quo is 
not tenable and we need some strong diplomacy. So we look 
forward to your insights.
    The Ambassador to Armenia is a very important position of 
great interest to me. Armenia experienced a change in 
government earlier this year, and we encourage the continuing 
strengthening of democratic institutions in the country. Many 
challenges remain outside the borders of this small nation. I 
remain concerned about the aggressive role of Azerbaijan and 
the conflict in Nagorno-Karabakh, and I welcome the efforts of 
the Minsk process to find a path forward.
    The Kremlin has made no secret of its agenda to undermine 
democracies across the world, and we must work together to 
counter such malign Russian influence in Armenia.
    Central to my work in Armenia over the years has been my 
advocacy for the truth with respect to the Armenian genocide. I 
have long worked in the United States Senate to push for an 
honest accounting of the Armenian genocide and to ensure that 
anyone who represents the United States Government does so as 
well.
    In every session of Congress since 2006, I have introduced 
or cosponsored resolutions affirming the facts of the Armenian 
genocide. When I was the chairman of this committee, I was 
proud to preside over the first-ever passage of an Armenian 
genocide resolution out of the committee.
    I have also scrutinized ambassadorial nominees to Armenia 
and other countries in the region. These actions are motivated 
by what I believe is a moral imperative for us all to recognize 
the atrocities against the Armenian people. So I look forward 
to engaging with you on your views with respect to the genocide 
this afternoon.
    Next, with Mr. Barsa, the nominee for Assistant 
Administrator for Latin America and the Caribbean at USAID, a 
region of the world that I have spent a lot of time on, if 
confirmed, Mr. Barsa will assume this position at a time of 
many challenges in the region, from the economic and 
humanitarian crisis in Venezuela to the challenges of 
insecurity and violence in Central America driving thousands to 
flee to the consolidation of peace in Colombia after more than 
a half a century of war and at a time when the oppressive 
regimes of Cuba, Venezuela, and Nicaragua continue to carry out 
human rights violations.
    The Assistant Administrator's position is an important one, 
as it requires vision and leadership to carry out the agency's 
mission of promoting democratic values and advancing inclusive 
economic growth.
    I look forward to hearing from you, as well as from Sarah-
Ann Lynch, our Ambassador nominee to Guyana, a country with 
many challenges but also much potential.
    I am also pleased that the President has nominated two well 
qualified candidates for the positions of Ambassador to 
Australia and the DG of the Foreign Service. I look forward to 
hearing from both of them.
    Australia is a key ally. It is instrumental to our 
diplomatic security and economic success in the Indo-Pacific 
and dealing with the challenge of a rising China.
    And the DG of the Foreign Service is essential for a well-
functioning Department of State.
    So we look forward to all of your testimony and to having 
an opportunity to ask you some questions.
    With that, Mr. Chairman, I yield back to you.
    The Chairman. Thank you.
    It would be good if you just gave your testimony in the 
order that we introduced you. I know you may have some family 
members that we would love to meet. There is a plus and minus 
to having six people here today. We have asked that you shorten 
your comments to 2 and a half minutes, if possible, just to 
help everyone out. A little less time in front of C-SPAN but a 
little quicker. [Laughter.]
    The Chairman. As you will realize, as this moves through, 
the quicker, the better for the nominees.
    And with that, again, thank you for wanting to present 
yourself for service in this way. We are grateful to you and 
your families. And with that, A.B., if you would begin, we 
would appreciate it.

  STATEMENT OF ARTHUR B. CULVAHOUSE, JR., OF TENNESSEE, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
       STATES OF AMERICA TO THE COMMONWEALTH OF AUSTRALIA

    Mr. Culvahouse. Yes, sir, Mr. Chairman.
    Shall I introduce my family first?
    The Chairman. Sure.
    Mr. Culvahouse. Okay.
    I am joined today by my three daughters, Liz, Sarah, and 
Anne, their three husbands, Steve, Jim, and Mike, and my three 
grandsons, three of my five grandsons, Joe, Ty, and Connor. The 
two youngest grandsons, in the interest of regular order and no 
protests, are not here, since they are 3 years old and 1 year 
old. But I am a lucky person to be represented by some people I 
love dearly.
    Chairman Corker, Senator Menendez, it is my deep honor to 
testify before the committee as the President's nominee to be 
Ambassador to Australia, a vital and steadfast ally of the 
United States.
    I sit here today in the Dirksen Building on the same floor 
and just a few steps away from where my government service 
began as Chief Legislative Assistant to Senator Howard H. 
Baker, Jr., a fellow Tennessean. Howard took a risk in hiring 
me right out of law school to be his Chief Legislative 
Assistant, although I was recommended to him by a then young 
Tennessee lawyer named Lamar Alexander.
    Howard later took me with him to the Reagan White House 
where he recommended to President Reagan that I be appointed 
Counsel to the President when Howard became White House Chief 
of Staff. It was, therefore, my rare privilege to work in a 
White House led by two American Presidents, President Ronald 
Reagan, of course, and then Vice President George H.W. Bush, 
whom we honor this week.
    I very much appreciate Senator Alexander's introduction. 
More than that, I appreciate our longstanding friendship. I am 
likewise grateful, Mr. Chairman, for your friendship and 
support. I would be remiss if I did not pay tribute to your 
stellar service to the Senate and to our home State.
    More than anything, however, I treasure my three daughters, 
Sarah Culvahouse Mills, Elizabeth Culvahouse Callahan, and Anne 
Culvahouse Teague. I am thankful that if I am confirmed, they 
will continue to support me in this new adventure.
    The United States and Australia have been formal allies 
since 1951 but friends for far longer. Australian troops have 
joined us in every major military conflict for the past 100 
years. That shared history resonates personally with me, as two 
of my uncles, my father's brothers, served in the U.S. military 
in the Pacific in World War II, while my father served in 
Europe. I have visited the Australian war memorial in Canberra 
where I learned firsthand about the sacrifices Australians have 
made to defend freedom and democracy worldwide including, as I 
speak today, standing with us in Afghanistan and in the 
campaign to defeat ISIS. The relationship between the United 
States and Australia is as rock solid as ever, and if 
confirmed, it will be my solemn duty to ensure that our 
alliance remains as vibrant and strong as when the ANZUS treaty 
was first signed in San Francisco.
    Australia is likewise a key foreign policy partner, working 
closely with us to persuade North Korea to denuclearize and to 
promote a free and open Indo-Pacific.
    Our economic ties are centuries longstanding and extremely 
consequential. The United States is far and away Australia's 
largest foreign investor. U.S. exports to Australia support 
300,000 American jobs, while American companies now employ more 
than 300,00 Australians.
    Mr. Chairman, permit me to close by saying that, if 
confirmed, I look forward to continuing to broaden and deepen 
these and many other relationships that tie our governments and 
our people so very closely together.
    Thank you.
    [Mr. Culvahouse's prepared statement follows:]


             Prepared Statement of Arthur B. Culvahouse Jr.

    Chairman Corker, Ranking Member Menendez, and members of the 
committee, it is my deep honor to testify before you today as the 
President's nominee to be Ambassador to Australia, a vital and 
steadfast ally of the United States. I am humbled by the trust the 
President has placed in me by considering me to fill this important 
role.
    I am here today in the Dirksen Building, on the same floor and just 
a few steps away from where my government service began as chief 
legislative assistant to the distinguished late Senator Howard H. 
Baker, Jr. A fellow Tennessean, he took a risk in hiring me right out 
of law school on the recommendation of a young Tennessee lawyer named 
Lamar Alexander. I was fortunate to learn from Howard Baker's 
experience and wise counsel in the Senate, and then as law partners, 
and again in the Reagan White House when he was Chief of Staff and I 
was the White House counsel. I am also thankful for the friendship and 
advice of many distinguished colleagues in public service, particularly 
Senator Corker. More than anything, though, I value the support of my 
three daughters, Sarah Culvahouse Mills, Elizabeth Culvahouse Callahan, 
and Anne Culvahouse Teague. Their steadfast love and encouragement has 
been critical to every success I have enjoyed, whether in government or 
in the private sector. I am so pleased that they could join me today. I 
am thankful that, if confirmed, they will continue to support me in 
this new adventure.
    The United States and Australia established diplomatic relations 78 
years ago and have been formal allies since 1951, but we have been 
friends for far longer. The United States and Australia first fought 
side-by-side 100 years ago during World War I and have faced combat 
together in every major global conflict since, including World War II, 
Korea, Vietnam, Afghanistan, and Iraq. That history of shared sacrifice 
resonates personally with me since two of my uncles served in the U.S. 
military in the Pacific during World War II, while my father served in 
Europe. During a recent trip to Australia, I visited the War Memorial 
in Canberra, where I learned about the sacrifices Australians have made 
to defend freedom and democracy worldwide. I was honored to lay a 
wreath in gratitude for these contributions. Today, the relationship 
between the United States and Australia is as solid as ever. If 
confirmed by the Senate, my first priority will be to ensure that our 
alliance grows even more robust than when the ANZUS treaty was signed 
in San Francisco nearly seven decades ago.
    In addition to the remarkably strong and active U.S.-Australia 
military relationship, our diplomatic, economic, and people-to-people 
ties with Australia are dynamic and growing. Australia is a key foreign 
policy partner, working closely with us to persuade North Korea to de-
nuclearize; to promote a free and open Indo-Pacific region; and to 
increase development assistance and infrastructure investment in the 
Pacific. Our economic ties go back to the late 1700s when American 
whaling ships provisioned in Sydney Harbor. One hundred years ago, the 
first U.S. firms opened offices in Australia. Today, the United States 
is far and away Australia's largest foreign investor. Two-way trade 
topped $64 billion in 2017, and the United States enjoys a trade 
surplus with Australia of nearly $29 billion. U.S. exports to Australia 
support roughly 300,000 jobs in the United States, while American 
companies employ more than 300,000 Australians. And our people-to-
people connections are also deep and broad. In 2017, almost 1.5 million 
Australians visited the United States and nearly 730,000 U.S. residents 
visited Australia, up nearly 27 percent over the last two years. The 
United States is the top destination for Australians wishing to study 
abroad. If confirmed, I look forward to continuing to broaden and 
deepen these relationships--relationships that bring not only our 
governments more closely together, but our people as well.
    Importantly, our relationship with Australia is not only about 
honoring our shared military sacrifice and close diplomatic, economic, 
and personal bonds over the past century--it is equally about nurturing 
and deepening these ties in the century to come. I am convinced that we 
have a bright future together, whether by working to confront current 
and emerging security challenges, by expanding our already strong 
bilateral diplomatic ties to include even greater cooperation with 
like-minded partners in the region, or by leveraging the opportunities 
presented by our open and innovative economies to work with Asia's 
rapidly growing middle class to make the entire Indo-Pacific a more 
prosperous and stable region in the years to come. If I am confirmed, I 
look forward to working with our team at Embassy Canberra and our 
consulates in Sydney, Melbourne, and Perth to connect to younger 
Australians through education exchanges, science and technology 
collaboration, investments by cutting-edge American firms, and our 
common foundation of shared history, enduring democratic values, and 
deep cultural bonds.
    Thank you.


    The Chairman. Thank you.
    Go ahead.

STATEMENT OF HON. CAROL Z. PEREZ, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
           BE DIRECTOR GENERAL OF THE FOREIGN SERVICE

    Ambassador Perez. Chairman Corker, Ranking Member Menendez, 
and distinguished members of the committee, I am honored to 
appear before you today as the President's nominee to be the 
Director General of the Foreign Service and Director of Human 
Resources at the Department of State.
    It would be my privilege to advance America's security and 
values by empowering and strengthening the workforce charged 
with this critical mission, our Foreign Service, Civil Service, 
locally employed personnel, family members, and other 
colleagues who work at the State Department in Washington and 
at our 277 posts around the world. Secretary Pompeo noted in 
his confirmation statement, diplomacy is not for the faint of 
heart, especially at a time of growing global challenges.
    Mr. Chairman, for over 31 years, I have had the pleasure of 
working with capable, dedicated, and patriotic public servants. 
These women and men toil both at home and abroad in service to 
our country. They swear an oath to protect and defend the 
Constitution often at great sacrifice to themselves and their 
families. And I can think of no higher honor than directing the 
recruitment, development, and retention of our personnel.
    Mr. Chairman, I would like to take a moment to recognize 
the members of my family in the room: my husband Al, my son 
Michael, and my daughters, Marisa and Caroline and her husband 
Jacob, who are here with today. They have stood by my side and 
I am forever grateful for their love and support.
    The Secretary noted in his confirmation testimony that his 
first priority would be setting the mission empowering our 
people, and to that end, on May 15th, he lifted the hiring 
freeze, ending the workforce reduction plan. The Department is 
actively recruiting and hiring to fill our highest priority, 
mission-critical vacancies. The Secretary has also made clear 
his commitment to filling senior vacancies. And if confirmed, 
these will be among my top priorities. Our employees are self-
motivated and committed to the mission, but vacancies have had 
a demoralizing effect and we must work hard to turn this 
around.
    Mr. Chairman, putting our people first is not just about 
hiring. It is also about retention, professional development, 
engagement, and workplace culture. Like the Secretary, I 
believe in fostering a culture of excellence anchored in 
performance, accountability, and communication. And 
communication begins with listening, but it also requires 
responsiveness and transparency. The Secretary has made this a 
priority, and if confirmed, I will follow his lead.
    Thanks to your longstanding bipartisan support for building 
a workforce that reflects our country's rich diversity, we have 
made important progress. Today's State Department looks and 
feels very different from the one that I entered in 1987. But 
we have a ways to go, especially in fostering diversity at more 
senior levels. If confirmed, I will work with the members of 
this committee to build on the progress we have made.
    Mr. Chairman, like our military, the State Department needs 
an array of different capabilities and skills to meet its 
mission. Our almost 14,000 Foreign Service employees are a 
forward-deployed force, doing everything from opening markets 
for American companies to preventing the spread of weapons of 
mass destruction. Our nearly 11,000 Civil Service personnel are 
the Department's institutional memory and are subject-matter 
experts. Our 50,000 locally employed staff are the mainstay of 
our U.S. diplomatic operations abroad. But whatever our 
position or title, as the Secretary has noted, we are one team 
with one mission and with one future. And I will work to enable 
this team effort to advance America's security, prosperity, and 
freedom.
    We live in a complex and changing world. Change has always 
been with us, but the pace has accelerated exponentially. 
Successful organizations share one characteristic: they adapt. 
And while our people excel at adapting, the Department as an 
institution has had a mixed record of doing so. And this must 
change. The Secretary has emphasized the need to be nimble, 
smart, and relevant. But to deliver better results for the 
American people, the Department must do a better job of 
supporting its own personnel, and if confirmed, I am committed 
to doing just that.
    Thank you for the opportunity to appear before you today.
    [Ambassador Perez's prepared statement follows:]


               Prepared Statement of Hon. Carol Z. Perez

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, I am honored to appear before you today as the 
President's nominee to be Director General of the Foreign Service and 
Director of Human Resources at the Department of State. I am deeply 
grateful for the confidence the President and Secretary Pompeo have 
shown in putting forth my nomination.
    It would be my privilege to advance America's security and values 
by empowering and strengthening the workforce charged with this 
critical mission-our Foreign Service, Civil Service, Locally Employed 
personnel, family members, and other colleagues who work at the State 
Department in Washington and at our 277 posts around the world. 
Secretary Pompeo noted in his confirmation statement, diplomacy is not 
for the faint of heart, especially at a time of growing global 
challenges. Strategic competition from China, Russian aggression, 
Iran's malign actions, terrorism, and narcotics and human trafficking 
are just some of the challenges.
    For more than 31 years, I have had the pleasure of working with 
capable, dedicated, and patriotic public servants. These women and men 
toil both at home and abroad in service to our country. They swear an 
oath to protect and defend the Constitution, often at great sacrifice 
to themselves and their families. Our locally employed staff sometimes 
also incur great risks working with and for the United States. I can 
think of no higher honor than directing the recruitment, development, 
and retention of all our personnel.
    I would like to take a moment to recognize the members of my 
family--my mom and dad, Irene and John Zelis, who are at home in 
Chicago, my husband Al, my son Michael, my daughters Marisa and 
Caroline and her husband Jacob, who are here with me today. They have 
stood by my side as I proudly represented the United States overseas 
and in Washington. I am forever grateful for their love and support.
    The Secretary noted in his confirmation testimony that his first 
priority would be setting the mission and empowering our people. To 
that end, on May 15, he lifted the hiring freeze on Foreign Service and 
Civil Service employment, ending the workforce reduction plan. The 
Department is actively recruiting and hiring to fill our highest 
priority, mission-critical vacancies. If confirmed, this will be one of 
my top priorities. The Secretary has also made clear his commitment to 
filling senior vacancies. If confirmed, I will support his efforts to 
identify our best career candidates for senior positions so we can get 
them in place and on-the-job. Our employees are self-motivated and 
committed to the mission, but, as the Secretary has noted, vacancies 
have had a demoralizing effect and we must work hard to turn this 
around.
    Putting our people first is not just about hiring. It is about 
retention, professional development, engagement, and workplace culture. 
Like the Secretary, I believe in fostering a culture of excellence that 
is anchored in performance, accountability, and communication. Leaders 
have a special responsibility to communicate. Communication begins with 
listening, but it also requires responsiveness and transparency. 
Communication is also critical to unleashing the talent of a diverse 
workforce. The Secretary has made this a priority, and, if confirmed, I 
will follow his lead.
    Thanks to our long-standing diversity efforts and bipartisan 
Congressional support through the Pickering and Rangel programs and 
other initiatives, we have made important progress in this area. 
Today's State Department looks and feels very different than the one I 
entered in 1987. But we have a ways to go, especially in fostering 
diversity at more senior levels. Addressing barriers to advancement and 
supporting professional development and career advancement 
opportunities will be a critical part of our efforts. If confirmed, I 
will work with the members of this committee to build on the progress 
we have made.
    Like our military, the State Department needs an array of different 
capabilities and skills to meet its mission. And while we do not have 
five services, we have three distinct personnel systems. Our almost 
14,000 Foreign Service employees, both our officers and specialists, 
are our forward-deployed force doing everything from opening markets 
for American companies and helping American citizens overseas to 
preventing the spread of weapons of mass destruction. Our nearly 11,000 
Civil Service personnel are the Department's institutional memory, 
continuity, and subject matter experts, based mostly in Washington, but 
also at our passport, security, and foreign mission offices across the 
country. Our 50,000 locally employed staff are the mainstay of our U.S. 
diplomatic operations abroad. Whatever our position or title, as the 
Secretary has noted, we are ``one team, with one mission, and one 
future.'' If confirmed, I will work to enable this team effort to 
advance America's security, prosperity and freedom.
    We live in a complex and changing world. Change has always been 
with us but the pace has accelerated exponentially in recent decades. 
Successful organizations share one characteristic: They adapt. While 
our people excel at adapting, the Department as an institution has a 
mixed record of doing so. This must change. The Secretary has 
emphasized the need to be ``nimble, smart, and relevant.'' Our people 
add value every day in big and small ways. But to deliver better 
results for the American people, the Department must do a better job of 
supporting its own personnel by empowering them, removing barriers and 
streamlining processes.
    If confirmed, I am committed to smart, strategic talent management 
that will build a diverse, capable, agile workforce capable of meeting 
the challenges and opportunities of our times.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.


    The Chairman. Thank you.

  STATEMENT OF CHRISTOPHER PAUL HENZEL, OF VIRGINIA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
    OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF YEMEN

    Mr. Henzel. Chairman Corker, Ranking Member Menendez, 
members of the committee, it is an honor to appear before you 
today as President Trump's nominee to serve as Ambassador to 
the Republic of Yemen. I am grateful to the President for his 
nomination and to Secretary Pompeo for his continued trust and 
confidence. I welcome the opportunity to discuss Yemen today.
    First, I want to publicly thank my amazing wife Adrienne 
and our children, Claire, Brendon, and Joey. I have had the 
privilege of serving as a Foreign Service officer for 32 years 
and have spent most of my career focusing on the Middle East 
and the Muslim world. I cannot imagine having done this without 
the support of my family. Families are an essential part of the 
Foreign Service and they share both the rewards and the 
hardships of foreign service life.
    Mr. Chairman, Ranking Member Menendez, members of the 
committee, if confirmed, I will work to advance our country's 
foreign policy and national security interests in Yemen. I will 
work to support the United Nations-led efforts toward a 
negotiated cessation of hostilities and a comprehensive peace 
agreement in Yemen, to bolster U.S. security cooperation with 
the Yemeni Government to foster stability, support efforts to 
address the dire humanitarian consequences of the conflict in 
Yemen, and ensure the safety and security of U.S. citizens and 
employees under Chief of Mission authority.
    If confirmed, I will continue the work of my predecessor 
and engage with the internationally recognized government of 
the Republic of Yemen, now operating in Aden and Riyadh. If 
confirmed, I will support the efforts of the U.N. Special 
Envoy, Martin Griffiths, to press for cessation of hostilities 
and to begin negotiations towards reconciliation, a 
comprehensive peace agreement, and a representative government. 
It is also imperative that we continue to urge all parties to 
allow commercial goods and humanitarian aid to reach the Yemeni 
people, something I know this committee has been very active 
on.
    In early November, the administration announced that it 
would cease refueling coalition aircraft after the Government 
of Saudi Arabia notified the United States that it no longer 
required this assistance. At our urging, the Saudi-led 
coalition has incorporated the no-strike list into its target 
development procedures, stopped the use of cluster munitions, 
changed its rules of engagement to incorporate U.S. 
recommendations, and established the Joint incident Assessment 
Team. The United States will continue to press the coalition 
and the Republic of Yemen Government to minimize civilian 
casualties and expand urgent humanitarian efforts throughout 
the country.
    The United Nations estimates that 22 million Yemenis, 80 
percent of the population, are in need of assistance. An 
estimated 14 million people could face severe food insecurity 
if conditions worsen. The United States is among the top 
humanitarian assistance donors to Yemen, providing more than 
$697 million since fiscal year 2018, which includes nearly $131 
million in additional emergency food assistance the Secretary 
announced on November 27th.
    A unified and prosperous Yemen at peace with itself and its 
neighbors is critical to the security of the Gulf Region and to 
safe navigation in the Bab al-Mandab. The United States will 
continue to lead the international community's response to 
mitigate the humanitarian crisis, while helping to build a 
stronger foundation for durable peace.
    Chairman Corker, Ranking Member Menendez, I am grateful for 
this opportunity to appear before you today and look forward to 
answering your questions.
    [Mr. Henzel's prepared statement follows:]


                Prepared Statement of Christopher Henzel

    Chairman Corker, Ranking Member Menendez, members of the committee, 
it is an honor to appear before you today as President Trump's nominee 
to serve as Ambassador to the Republic of Yemen. I am grateful to the 
President for his nomination and to Secretary Pompeo for his continued 
trust and confidence. I welcome the opportunity to discuss Yemen and 
ask that my full testimony be submitted for the record.
    First, I want to start by publicly thanking my amazing wife 
Adrienne, and our children Claire, Brendan, and Joseph, who have shared 
with me the rewards and hardships of Foreign Service life. I have had 
the privilege of serving as a Foreign Service Officer for nearly 33 
years, currently as Charge D'Affaires at the U.S. Embassy in Riyadh and 
have spent most of my career focusing on the Middle East and Muslim 
world. Without their support none of this would have been possible.
    Mr. Chairman, Ranking Member Menendez, members of the committee, if 
confirmed, I will work to advance our country's key foreign policy and 
national security interests in Yemen. I will work to support the United 
Nations (U.N.)-led efforts towards a negotiated cessation of 
hostilities and a comprehensive peace agreement in Yemen; bolster U.S. 
security cooperation with the Yemeni Government and other partners to 
foster greater regional and global stability; support efforts to 
address the dire humanitarian consequences of the conflict in Yemen; 
and ensure the safety and security of U.S. citizens and employees under 
Chief of Mission authority.
    The Office of the United States Ambassador to Yemen operates out of 
the Yemen Affairs Unit located at the United States Embassy in Riyadh, 
with monitoring offices in Jeddah and Amman, due to the security 
situation in Yemen, which is now entering a fifth year of conflict. 
This protracted war has exacerbated the world's largest food insecurity 
emergency and cholera epidemic, and created an economic crisis. The 
conflict has drawn in neighboring states, has led to collapsed state 
institutions, local power vacuums and ungoverned spaces that the 
Houthis and terrorists have exploited to threaten important partners in 
the region, and has threatened U.S. national security interests, as 
well. The war in Yemen has complicated our ongoing counterterrorism 
efforts and has facilitated Iran's ambitions, further threatening 
regional stability. If confirmed, I will continue the work of my 
predecessor and continue to engage with and support the internationally 
recognized Republic of Yemen Government (ROYG), including President 
Hadi and the Prime Minister and cabinet members now operating in Aden 
and Riyadh, as well as the other governments supporting it.
    The administration's position on bringing an end to the conflict in 
Yemen is clear: only a negotiated settlement can end this protracted 
war and unify Yemen. If confirmed, I will fully support U.N. Special 
Envoy to Yemen, Martin Griffiths' efforts to press for a cessation of 
hostilities, particularly in the western port of Hudaydah, and to begin 
negotiations towards reconciliation, a comprehensive peace agreement, 
and a representative government. It is also imperative that we continue 
to urge all parties to allow commercial goods and humanitarian aid and 
supplies to continue to flow through this crucial port to reach the 
Yemeni people-something I know this committee has been very active on.
    In early November, the administration announced that we would cease 
refueling Coalition aircraft after the Government of Saudi Arabia 
notified the United States that it no longer required our assistance. 
At our urging, the Saudi-led Coalition incorporated the No-Strike List 
into its target development procedures; stopped the use of cluster 
munitions; changed its rules of engagement to incorporate some U.S. 
recommendations; established the Joint Incident Assessment Team; and 
now primarily utilizes precision- guided munitions, which can help 
decrease civilian casualties and collateral damage. However, the United 
States will continue to focus on working with the Coalition and the 
ROYG to minimize civilian casualties and expand urgent humanitarian 
efforts throughout the country.
    The United Nations estimates that 22.2 million Yemenis, 80 percent 
of the population, are in need of assistance. An estimated 14 million 
people could face severe food insecurity if conditions worsen. The 
United States is among the top humanitarian assistance donors to Yemen, 
providing more than $697 million in FY 2018, which includes nearly $131 
million in additional emergency food assistance the Secretary announced 
November 27. Our continued assistance is critical to preventing famine-
level conditions. The United States Agency for International 
Development (USAID) and the Department of State will continue to play a 
pivotal role in stabilization and governance capacity building in areas 
of Yemen under ROYG control. USAID efforts include promoting social 
protection programs to create job opportunities, providing technical 
assistance to the Central Bank of Yemen to strengthen this critical 
pillar of the Yemeni economy, and investing in Yemen's education system 
by feeding more than 900,000 Yemeni children daily and putting over two 
million children back in school. USAID will also support the recovery 
of Yemen's health system and repair infrastructure to provide potable 
water and reduce the likelihood of further devastating cholera 
outbreaks.
    Developing stabilization and governance capacity building in areas 
of Yemen under ROYG control in order to enhance Yemenis' capacity to 
manage conflicts at the local level is also critical. Looking ahead, 
once a peace agreement is reached, experts project that there could be 
over one million former combatants in Yemen. To prepare for this, the 
Department is planning long-term engagement on post-conflict Security 
Sector Reform and Disarmament, Demobilization, and Re-integration 
needs. If confirmed, I will also continue our security cooperation 
programming with the ROYG and the Saudi-led Coalition to strengthen the 
counter-smuggling and counterterrorism capacity of Yemeni forces, in 
addition to their maritime defense and customs and border protection 
capabilities. While Coalition efforts in eastern and southern Yemen 
have produced measurable gains, Al-Qa'ida in the Arabian Peninsula 
(AQAP) and the Islamic State in Yemen (ISIL-Y) continue to use Yemen as 
a safe haven, seizing every opportunity to expand their operations. We 
must also continue to strengthen U.S.-Yemeni coordination in the fight 
to defeat terrorism by continuing strong U.S. support for programs that 
develop the capability of our partners within Yemen's security forces, 
counter violent extremism, and build the capacity of law enforcement 
for a future unified Yemen.
    A unified and prosperous Yemen, at peace with itself and its 
neighbors, is critical to stability in the Gulf region and safe 
navigation in the vital waterways of the Red Sea and Bab al-Mandab. The 
United States will continue to lead the international community's 
response to mitigate the humanitarian crisis, while helping to build a 
stronger foundation for durable peace by strengthening Yemeni systems, 
including government, civil society, and private sector institutions 
that reduce conflict.
    We must prepare ourselves to have a strong presence in a unified 
Yemen, despite future threats that may be posed by the efforts of 
rebuilding and unification.
    Chairman Corker, Ranking Member Menendez, I am grateful for the 
opportunity to appear before you today and I look forward to answering 
your questions.


    The Chairman. Thank you.
    Mr. Barsa?

    STATEMENT OF JOHN BARSA, OF FLORIDA, TO BE AN ASSISTANT 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
        DEVELOPMENT FOR LATIN AMERICA AND THE CARIBBEAN

    Mr. Barsa. Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee, I am honored to appear 
before you today as the nominee to serve as the Assistant 
Administrator for Latin America and the Caribbean at USAID.
    I am deeply grateful to President Trump and USAID 
Administrator Mark Green for the support and confidence they 
have placed in me with this nomination. If confirmed, I look 
forward to working closely with the U.S. Congress to ensure 
that USAID's programs in the region advance U.S. national 
security and geopolitical interests.
    As I begin my remarks, I would like to recognize the 
outstanding leadership of Sarah-Ann Lynch, seated here with me 
and Steve Olive who have headed up USAID LAC Bureau for the 
past 2 years. Thanks to their efforts, the LAC Bureau has been 
able to continually and successfully function in sometimes 
challenging times.
    I would also like to take this opportunity to thank my wife 
Lisa and my daughters Camille and Olivia, who are here today 
seated behind me, for their unwavering love and support.
    As the son of a Cuban refugee who grew up amongst 
immigrants from throughout the western hemisphere, my 
understanding of the forces that deny people the ability to 
live in freedom, prosperity, and safety in their own countries 
is not just something I know because of academic studies; it is 
part of my history. I know it innately and viscerally.
    Throughout my career in public service, as a member of the 
U.S. Army Reserves for almost a decade, as a congressional 
staffer working in the U.S. House of Representatives, and as an 
appointee in the executive branch at the Department of Homeland 
Security, I have always appreciated the ability of an 
individual to make a difference.
    If confirmed by the Senate, the charge before me of leading 
the Latin America and Caribbean of USAID is a great one. The 
men and women of the LAC Bureau are engaged in critical work 
throughout the hemisphere. If confirmed, it will be my 
responsibility and greatest honor to ensure that each and every 
individual in the bureau has the guidance and resources they 
need to accomplish their mission of furthering the U.S. 
national interests by ensuring the growth of freedom, 
prosperity, and democracy throughout the western hemisphere.
    It would be a particular honor to serve under Administrator 
Mark Green. His unwavering moral compass and leadership in the 
execution of the USAID mission is inspirational.
    If confirmed, I also look forward to working closely and 
collaboratively with this committee to tackle the scourges of 
corruption, impunity, failed governments, and dictatorial 
regimes that plague too many in our part of the world.
    I am humbled by the opportunity being afforded to me as an 
individual to enable positive change for countless individuals 
in our world. If confirmed, I can, without hesitation or 
reservation, pledge to you that I will endeavor to bring every 
talent and skill that I may have to the challenges before me in 
furtherance of the USAID LAC mission.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify before you today. I am honored to be 
here, and I welcome your questions.
    [Mr. Barsa's prepared statement follows:]


                    Prepared Statement of John Barsa

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, I am honored to appear before you today as President 
Trump's nominee to serve as the Assistant Administrator for Latin 
America and the Caribbean (LAC) at the United States Agency for 
International Development (USAID). I am deeply grateful to the 
President and USAID Administrator Mark Green for the support and 
confidence they have placed in me with this nomination. If confirmed, I 
look forward to working closely with the U.S. Congress to ensure that 
USAID's programs in the region advance U.S. national security and 
geopolitical interests.
    As I begin my remarks, I would like to recognize the outstanding 
leadership of Sarah-Ann Lynch and Steve Olive, who have headed USAID's 
LAC Bureau for the past two years. Thanks to their efforts the LAC 
Bureau has been able to continually and successfully function in 
sometimes challenging times.
    I would also like to take this opportunity to thank my wife, Lisa, 
and my daughters, Camille and Olivia, who are here today, for their 
unwavering love and support.
    Throughout my career, I have been blessed with the opportunity to 
work with many talented and inspiring leaders. I would also like to 
thank these mentors, too many to name here, who have made me a better 
public servant, manager, and leader.
    I truly am humbled to have been nominated to lead the men and women 
of USAID's Bureau for Latin America and the Caribbean. I cannot agree 
more with Secretary Pompeo who just last week said the administration 
considers ``our relationship with South America, Central America and 
Mexico to be central to American success.'' In addition to furthering 
our national interest, it's also the right and moral thing to do. If 
confirmed, I will use my experience--coordinating with other Agencies, 
collaborating with Congress, leading teams in a results-driven manner, 
participating in disaster responses and coordinating with the 
military--to lead USAID's Bureau for Latin America and the Caribbean.
    My interest in Latin America and the Caribbean is not purely 
academic. It is quite literally in my blood. My mother was born in 
Santiago de Cuba, to a middle-class family that never harbored any 
desire to leave their country. They were not political in any sense of 
the word. Like just about everyone else, my mother and her four 
siblings simply sought educations, careers, the ability to start and 
support their own families, and the opportunity to provide an even 
brighter future for their own children.
    As the nightmare of Fidel Castro's communist revolution descended 
upon the island, it became clear that not only were their highest 
aspirations no longer possible, their ability to live in safety with 
the most basic of freedoms was in jeopardy as well. Members of my 
family were placed in jail for the crime of possessing U.S. dollars. 
Family properties were seized. Jobs were lost. People they knew were 
being summarily executed for not supporting the revolution. For my 
family's own survival they felt they had to flee the island. And so 
they did.
    When my mother and most of her immediate family settled in Miami, 
they were able to restart their lives as is only possible in America. 
It was there in Miami that she met my father. It was there that I was 
born and raised as a fully bilingual and bicultural individual. And it 
is there that I graduated from Belen Jesuit High School, and it was 
there that I received my B.A. in International Relations from Florida 
International University. And throughout it all, I was not only 
surrounded by first- and second-generation Cuban refugees, but also by 
first- and second-generation refugees and immigrants from Haiti, 
Nicaragua, Guatemala, Colombia, Venezuela, and other countries 
throughout the Western Hemisphere.
    Growing up among immigrants and their descendants does not make me 
unique. The vast majority of Americans are the descendants of 
immigrants. But because I grew up in Miami as the son of a Cuban 
refugee and surrounded by other immigrants from across Latin America 
and the Caribbean, my understanding of the forces that deny people the 
ability to live in freedom, prosperity, and safety in their own 
countries isn't just something I know because of academic studies. It 
is part of my history. I know it innately and viscerally.
    The Jesuit ideal of ``being a man for others,'' which I was taught 
at Belen Jesuit High School, was something I first put into practice in 
1987, when I joined the United States Army Reserve, where I ultimately 
became a member of the 11th Special Forces Group, and later served in a 
Civil Affairs unit. It was while I served in Civil Affairs that I first 
learned about the unique partnership between USAID and the Department 
of Defense, and U.S. Army Reserve's Civil Affairs in particular. If 
confirmed as Assistant Administrator for Latin America and the 
Caribbean at USAID, I will use this unique understanding of the 
organization and role of the military in general, and Civil Affairs in 
particular, to ensure continued USAID-Department of Defense 
partnerships to advance U.S. foreign policy goals.
    My next instance of public service occurred in 1993, when I joined 
the personal staff of Congressman Lincoln Diaz-Balart (R-FL). It was 
there that I developed a deep appreciation for Congress' oversight 
responsibilities. While on Congressman Diaz-Balart's staff, I also 
learned the critical importance of working in a bipartisan manner for 
the greater good of the country.Perhaps no better example of this was 
the 1997 passage of the Nicaraguan Adjustment and Central American 
Relief Act (NACARA), which was the culmination of countless hours of 
bipartisan negotiations and interparty discussions. I believe it 
remains a great testament to what Congress can achieve regarding 
immigration reform, and I am extremely proud to have played a very 
small part in its passage.
    I am also extremely proud to be continuing my public service today, 
in my current role as the Principal Deputy Assistant Secretary for the 
Office of Partnership and Engagement (OPE) at the Department of 
Homeland Security (DHS). DHS OPE coordinates the Department's outreach 
efforts with critical stakeholders nationwide, including state, local, 
tribal, territorial (SLTT) governments, SLTT elected officials, SLTT 
law enforcement, the private sector, and academia, ensuring a unified 
approach to external engagement. OPE advocates and represents the 
interests of these stakeholders through the Department's policy making 
process and as a conduit for the Secretary to engage with stakeholders 
or share information.
    Early in the administration, when I arrived at OPE as the Acting 
Assistant Secretary, I found that my organization was in charge of 
three separate public awareness campaigns: the ``If You See Something, 
Say Something'' campaign, the ``Blue Campaign''--the unified voice for 
Anti-Human Trafficking efforts throughout DHS--and a Cyber Security 
Awareness campaign given to DHS by the 114th Congress. All three 
campaigns had different reporting structures and mechanisms. It was 
clear to me that for each of the campaigns to grow and flourish they 
needed to operate out of their existing silos and share resources and 
information. I merged all three campaigns into one ``Campaign Office'' 
within OPE. I hand-picked a political appointee to lead this new 
office, and together we helped realize multiple efficiencies and 
benefits for all of the campaigns. Perhaps most importantly to this 
committee, under my tenure at DHS OPE, the Blue Campaign to raise 
awareness about human trafficking has grown remarkably.
    Another aspect of my professional experience is also relevant to 
the position for which I have been nominated: disaster response. I have 
worked on disaster responses for Hurricanes Katrina, Irma, and most 
recently, Maria. When I deployed to Puerto Rico in the aftermath of 
Hurricane Maria, I was asked to set up an intergovernmental affairs 
operation within the FEMA response framework that would somehow 
establish communications and regular contact with each of Puerto Rico's 
78 mayors. Even today, it is hard to fathom just how extensively Puerto 
Rico was impacted. Not only was the physical devastation severe, but 
traditional means of communication were virtually non-existent.
    I arrived in Puerto Rico not fully knowing exactly how I was to 
accomplish this mission. However, upon seeing the familiar Civil 
Affairs patch on the arm of some soldiers at FEMA's Joint Field Office, 
I knew that the Army Reserve's Civil Affairs would be part of my 
solution.
    And they eventually were. A Civil Affairs Battalion, mostly fluent 
native Spanish speakers, became part of my team which included other 
fluent Spanish speakers from the U.S. Coast Guard and a myriad of other 
civilian agencies. My teams established regular contact with local 
government leaders, allowing improved disaster response and life-saving 
efforts. This--the largest and most complex intergovernmental affairs 
effort in FEMA history--has been lauded by FEMA and military leaders as 
an example for future post-disaster cooperation. I am proud that my 
knowledge of just how civilian and military organizations can work 
together helped to contribute to this success. If confirmed, I will 
bring this experience to USAID, the U.S. Government lead on 
international disaster responses.
    However, as we know, meeting the development and prosperity 
challenges in the Western Hemisphere necessitates more than just 
disaster response. Each country has unique challenges as they move 
forward on what Administrator Green has eloquently described as the 
Journey to Self-Reliance. In the Northern Triangle of Central America, 
challenges include weak democratic governance, corruption, a lack of 
economic progress, and a dearth of job opportunities for those who 
desperately seek them. Taken together, these challenges darken the 
future of those living there and all too often drive them to undertake 
a treacherous journey north and seek to illegally immigrate to the 
United States. USAID programs in the Northern Triangle, such as 
programs in El Salvador that target communities with high homicide 
rates, and programs in Honduras and Guatemala that combat corruption, 
seek to directly take on these challenges.
    In Haiti, USAID continues to help the people of Haiti to gain 
stability and prosperity so that they can build their futures at home. 
In Colombia and Peru, USAID and its partners must continue promoting 
rural economic development so that we can curb the flow of cocaine into 
our country and mitigate the effects of illegal mining and resource 
extraction. For those countries further along on their Journey to Self-
Reliance, such as Mexico, Chile, and Brazil, USAID's relationship has 
gone from strictly donor to one of partnership. If confirmed, I look 
forward to strengthening and expanding these current partnerships, to 
further the prosperity and security of the entire Western Hemisphere.
    And as Administrator Green has repeatedly noted and as National 
Security Advisor Bolton recently said in Miami, there are three 
countries that stand out among others. These countries--Cuba, 
Venezuela, and Nicaragua--are led by regimes who daily show their 
disregard for human rights, the rule of law, and the betterment of 
their own people. Cuba, in particular, is not just oppressing its own 
people, but is exporting their brutal techniques and expertise to 
support the tyrannies in Venezuela and Nicaragua. With Cuba's support, 
Maduro's repression of his own people has led to the greatest migration 
crisis in the history of the Western Hemisphere. To date, approximately 
3 million people have fled the brutal dictatorship to seek refuge in 
neighboring countries, putting fragile democracies at risk. USAID is 
contributing life-saving humanitarian and development assistance to 
Venezuelans throughout the region and the countries generously hosting 
them.
    Right now, USAID's programs in Venezuela, Nicaragua and Cuba 
maintain a crucial lifeline to independent media and civil society in 
these countries who are under threat from their own governments. If 
confirmed by the Senate, you will have my unwavering commitment to 
build upon USAID activities to further the cause of freedom in Cuba, 
Nicaragua, and Venezuela.
    I believe in Vice President Pence's vision--echoed by Administrator 
Green--of a Hemisphere of Freedom in which all people have a voice in 
their governments. If confirmed by the Senate, I will ensure that USAID 
programs continue to address the root causes that hinder prosperity and 
freedom throughout the Western Hemisphere.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify before you today. I am honored to be here, and I 
thank you for your consideration. I welcome your questions.


    The Chairman. Thank you.
    Ms. Lynch?

 STATEMENT OF SARAH-ANN LYNCH, OF MARYLAND, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
    STATES OF AMERICA TO THE CO-OPERATIVE REPUBLIC OF GUYANA

    Ms. Lynch. Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee to serve as the 
next U.S. Ambassador to the Co-operative Republic of Guyana.
    I am deeply grateful to the President, Secretary Pompeo, 
and USAID Administrator Mark Green for the support and 
confidence they have placed in me. If confirmed, I pledge to 
work closely with you, with this committee and its staff, and 
other Members of the Congress, to advance our nation's interest 
in the Co-operative Republic of Guyana.
    I would like to take this opportunity to thank my husband, 
Dr. Kevin Healy, who is with me here today, for all his support 
over the years. Our children could not be here, but I would 
like to also thank them, Mariah, Garrett, and Dylan, for their 
support, as well as for their service to AmeriCorps/City Year, 
the U.S. Army National Guard, and various community 
organizations. I am also extraordinarily grateful for the 
encouragement of my mother Evelyn, a former member of World War 
II's Cadet Nursing Corps, and my late father Robert, an Army 
veteran of World War II.
    My passion for international affairs was sparked years ago 
when I was accepted into the U.S. Peace Corps. I was honored to 
serve as a Peace Corps volunteer in Morocco and continued my 
work in international affairs as a USAID Foreign Service 
officer, serving for the past 25 years overseas in Bangladesh, 
Peru, Afghanistan, and Iraq, and in Washington, more recently, 
in the Bureau for Latin America and the Caribbean. Having 
served over half my career working on issues related to Latin 
America and the Caribbean, I am particularly honored to be 
considered for this important position in a region that is near 
and dear to my heart.
    If confirmed, I will proudly promote U.S. values and 
represent the United States in Guyana, a melting pot of ethnic 
and religious diversity. I pledge to work with Guyana in areas 
of mutual interest as we seek to support the Government of 
Guyana as the country emerges as a petroleum producer, increase 
fair and reciprocal bilateral trade and investment, and work 
with the Guyanese Government and people to build upon gains in 
democratic governance, the rule of law, and citizen security. A 
secure democratic and prosperous Guyana will be a key ally for 
the United States for years to come in the region that we 
share.
    This is a particularly momentous time for Guyana, a country 
that the World Bank currently identifies as middle income. 
However, the discovery of significant reserves of oil in recent 
years could alter the equation for this small nation. As such, 
it is critical that the country not fall into the trap of the 
resource curse. Guyana must continue to look for opportunities 
to diversity its economy, improve its governance, and 
strengthen its civil society. If confirmed, I will look for 
ways to build upon the work that Guyana has already done to 
chart a productive course for its future.
    I look forward to enhancing U.S.-Guyanese relations and 
exploring every opportunity to engage with the government and 
the people of Guyana to help them fulfill their ambitious 
agenda.
    Also, as the Secretary of State's representative to 
CARICOM, if confirmed, I will work closely with our regional 
partners to broaden our engagement under the U.S.-Caribbean 
2020 strategy.
    Finally, as a matter of the highest priority, I will strive 
to protect U.S. mission personnel and private U.S. citizens in 
Guyana.
    Chairman Corker, Ranking Member Menendez, and committee 
members, I thank you all again for the opportunity to appear 
before you today, and I welcome your questions. Thank you.
    [Ms. Lynch's prepared statement follows:]


                 Prepared Statement of Sarah-Ann Lynch

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, I am honored to appear before you today as President 
Trump's nominee to serve as the next U.S. Ambassador to the Co-
operative Republic of Guyana. I am deeply grateful to the President, 
Secretary Pompeo and the U.S. Agency for International Development 
(USAID) Administrator Mark Green for the support and confidence they 
have placed in me. If confirmed, I pledge to work closely with you, 
with this committee and its staff, and other members of Congress to 
advance our nation's interests in the Co- operative Republic of Guyana.
    I would like to take this opportunity to thank my husband, Dr. 
Kevin Healy, who is with me today, for all his support over the years. 
Our children could not be here, but I would also like to thank them--
Mariah, Garrett and Dylan--for their support, as well as for their 
service to AmeriCorps/City Year, the U.S. Army National Guard and 
various community organizations. I am also extraordinarily grateful for 
the encouragement of my mother, Evelyn, a former member of World War 
II's Cadet Nursing Corps, and my late father, Robert, an Army veteran 
of World War II.
    My passion for international affairs was sparked years ago when I 
was accepted into the U.S. Peace Corps. I was honored to serve as a 
Peace Corps volunteer in Morocco, and, if confirmed, it would be a 
privilege to work with today's volunteers who are delivering critical 
U.S. assistance to the Guyanese people. I continued my work in 
international affairs as a USAID Foreign Service Officer, serving for 
the past 25 years overseas in Bangladesh, Peru, Afghanistan, and Iraq, 
and in Washington, most recently as the Senior Deputy Assistant 
Administrator in the Bureau for Latin America and the Caribbean. Having 
served over half of my career working on issues related to Latin 
America and the Caribbean, I am particularly honored to be considered 
for this important position in a region that is near and dear to my 
heart.
    If confirmed, I will proudly promote U.S. values and represent the 
United States in Guyana, a melting pot of ethnic and religious 
diversity. I pledge to work with Guyana in areas of mutual interest as 
we seek to: (1) support the Government of Guyana as the country emerges 
as a petroleum producer and leverages its newfound revenues to expand 
economic opportunities and social services for all its citizens; (2) 
increase fair and reciprocal bilateral trade and investment, including 
promoting opportunities for U.S. businesses; and, (3) work with the 
Guyanese Government and people to build upon gains in democratic 
governance, the rule of law and citizen security. A secure, democratic 
and prosperous Guyana will be a key ally for the United States for 
years to come in the region that we share.
    This is a particularly momentous time for Guyana, a country the 
World Bank currently identifies as middle-income. However, the 
discovery of significant reserves of oil in recent years could alter 
the equation for this small nation. It is estimated that Guyana holds 
over 4 billion barrels of offshore oil reserves, which could put it 
into the top twenty oil producing countries in the world. As such, it 
is critical the country not fall into the trap of the ``resource 
curse.'' Guyana must continue to look for opportunities to diversify 
its economy, improve its governance, and strengthen its civil society. 
If confirmed, I will look for ways to build upon the work that Guyana 
has already done to chart a productive course for its future.
    We only have to look to Guyana's west--to Venezuela--to see how 
poor governance and corruption have destroyed what should be one of 
South America's most prosperous economies. Venezuelans are fleeing 
their country in droves, with thousands now entering neighboring 
Guyana. While the Government and people of Guyana have been extremely 
generous in their assistance to the Venezuelan people, Guyanese systems 
could become overwhelmed. If confirmed, I pledge to work with the 
Government of Guyana to help them continue to look for ways to address 
this situation.
    I look forward to enhancing U.S.--Guyanese relations and exploring 
every opportunity to engage with the Government and people of Guyana to 
help them fulfill their ambitious agenda. Also, as the Secretary of 
State's representative to CARICOM, if confirmed, I will work closely 
with our regional partners to broaden our engagement under the U.S.-
Caribbean 2020 strategy.
    Finally, as a matter of the highest priority, I will strive to 
protect U.S. Mission personnel and private U.S. citizens in Guyana.
    Chairman Corker, Ranking Member Menendez and committee members, I 
thank you again for the opportunity to appear before you today, and I 
welcome your questions.


    The Chairman. Thank you.
    Ms. Tracy?

 STATEMENT OF LYNNE M. TRACY, OF OHIO, A CAREER MEMBER OF THE 
  SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF ARMENIA

    Ms. Tracy. Mr. Chairman, Ranking Member Menendez, and 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee to be the next 
U.S. Ambassador to Armenia. If confirmed, I pledge to work 
closely with this committee and all Members of Congress.
    I am pleased to be joined today by my mother, Carol Sue 
Tracy, and my sister, Anita Jepsky. I want to thank them, as 
well as other family members who could not be here today. I 
particularly want to acknowledge my father, Albert Tracy, who 
passed away 3 weeks ago. He was a constant source of strength 
and encouragement and was so proud and happy when my nomination 
was announced. Throughout my 24 years of public service, my 
family's support has meant everything to me during some very 
tough and dangerous assignments.
    Mr. Chairman, the overall goal of Armenian policy remains 
an independent, democratic, and prosperous Armenia at peace 
with its neighbors. And we continue to affirm our commitment to 
a sovereign Armenia, free to choose its own partners.
    In April and May of this year, hundreds of thousands of 
Armenian citizens took to the streets with determination but 
without violence to hold their government accountable. Like so 
many others, I was heartened to see a peaceful transition of 
power. Armenia still has work ahead, however, to cement the 
gains of the past 6 months. If confirmed, I would continue our 
efforts to support the democratic aspirations of the Armenian 
people. And we are grateful for the assistance from Congress 
that has made a lasting impact on Armenia's economic 
development and democratic transition.
    The peaceful settlement of the Nagorno-Karabakh conflict is 
essential for a more secure and prosperous future for Armenia 
and the South Caucasus. If confirmed, I will support the 
administration's commitment to achieving this goal.
    Mr. Chairman, the horrific events of 1915 represent one of 
the worst mass atrocities of the 20th century when 1.5 million 
Armenians were deported, massacred, or marched to their deaths 
in the final years of the Ottoman Empire. As President Trump 
stated on Armenian Remembrance Day this year, such atrocities 
must not be repeated. If confirmed, I pledge to do everything 
in my power to remember the victims and encourage Turkey and 
Armenia to acknowledge and reckon with the painful elements of 
the past.
    Armenia has been a steadfast partner on many fronts, and 
the bonds between Armenia and the United States are further 
bolstered by the active participation of the Armenian American 
diaspora. If confirmed, I will do everything in my power to 
strengthen and deepen the U.S.-Armenian partnership.
    Finally, as a veteran of multiple high danger postings, 
questions of safety and security for American citizens and 
embassy personnel will have my complete attention and will be 
my highest priority, if confirmed.
    Mr. Chairman, thank you for the privilege of appearing 
before the committee and considering my nomination. I look 
forward to your questions.
    [Ms. Tracy's prepared statement follows:]


                   Prepared Statement of Lynne Tracy

    Mr. Chairman, Ranking Member Menendez, and distinguished members of 
the committee, I am honored to appear before you today as President 
Trump's nominee to be the next U.S. Ambassador to Armenia. I am 
grateful to the President and Secretary Pompeo for the confidence they 
have placed in me. If confirmed, I pledge to work closely with this 
committee and all members of Congress to advance U.S. interests in 
Armenia and promote the democratic ideals and values for which the 
United States stands.
    I am pleased to be joined today by my mother Carol Sue Tracy and my 
sister Anita Jepsky. I want to thank them as well as Anita's husband 
Arthur Jepsky, my sister Mary Lou Carter and her husband Donald Carter, 
and my grandmother Isabel Pontius who could not be here today. I 
particularly want to acknowledge my father Albert Tracy who recently 
passed away and was a constant source of strength and encouragement. 
Throughout my 24 years of public service, their support has meant 
everything to me during some very tough and dangerous assignments.
    The overall goal of our Armenia policy remains an independent, 
democratic, and prosperous Armenia, at peace with its neighbors. 
Situated astride a geographic and cultural crossroads, Armenia has 
always balanced competing interests, and we continue to affirm our 
commitment to a sovereign Armenia, free to choose its own partners.
    In April and May of this year, hundreds of thousands of Armenian 
citizens took to the streets with determination but without violence to 
hold their government accountable. Like so many others, I was heartened 
to see a peaceful transition of power. Armenia still has work ahead, 
however, to cement the gains of the past six months. If confirmed, I 
would continue the distinguished efforts of my predecessor, Ambassador 
Rick Mills, to support the aspirations of the Armenian people, who are 
calling for accountable governance, an economy free of unfair and 
monopolistic practices, respect for human rights and fundamental 
freedoms, rule of law buttressed by an independent judiciary, and a 
system of government with strong checks and balances.
    We are grateful for the assistance from Congress that has made a 
lasting impact on Armenia's economic development and democratic 
transition by supporting anti-corruption initiatives, civil society, 
independent media, private sector productivity, regional integration, 
and efforts to counter malign influence. I am mindful that these are 
hard-earned U.S. taxpayer dollars that must be spent effectively in 
support of U.S. goals and priorities.
    The peaceful settlement of the Nagorno-Karabakh conflict is 
essential for a more secure and prosperous future for Armenia and the 
South Caucasus. As Co-Chair of the OSCE Minsk Group, the United States 
is working to help the sides achieve a peaceful, lasting negotiated 
settlement of the conflict based on the principles of the U.N. Charter 
and the Helsinki Final Act, including the non-use of force or threat of 
force, territorial integrity, and the equal rights and self-
determination of peoples. If confirmed, I will support the 
administration's commitment to achieving this goal.
    Mr. Chairman, the horrific events of 1915, the Meds Yeghern or 
Great Calamity, when 1.5 million Armenians were deported, massacred, or 
marched to their deaths in the final years of the Ottoman Empire, must 
never be forgotten. As President Trump stated on Armenian Remembrance 
Day this year, ``As we honor the memory of those who suffered, we 
[must] ensure that such atrocities are not repeated.'' If confirmed, I 
pledge to do everything in my power to remember the Meds Yeghern 
victims and uphold that solemn commitment.
    We must also look to the future and the opportunities for Armenia's 
next generation. Progress toward reconciliation with Turkey can help 
reduce Armenia's isolation and bolster its economy. Towards that end, 
we encourage Turkey and Armenia to acknowledge and reckon with painful 
elements of the past. If confirmed, I will do my best to support 
Armenian and Turkish efforts to forge a more peaceful and productive 
relationship.
    Armenia has been a steadfast partner on many fronts, contributing 
161 troops to NATO operations in Afghanistan and Kosovo and showing 
great generosity in welcoming Syrian refugees. Three years ago, Armenia 
and the United States signed a Trade and Investment Framework 
Agreement, and we saw significant increases in U.S.-Armenia trade in 
2017, including several major U.S. investments. We want to help grow 
Armenia's economy, especially the burgeoning information technology 
sector, and broaden Armenia's economic diversity and ties to 
international markets.
    People-to-people initiatives, including U.S. study and exchange 
programs, continue to be one of the pillars of our relationship, 
bringing nearly 450 Armenian students and professionals to the United 
States in the last five years. The bonds between Armenia and the United 
States are further bolstered by the active participation of the 
Armenian-American diaspora. Mr. Chairman, if confirmed, I will do 
everything in my power to strengthen and deepen the U.S.-Armenian 
partnership.
    Finally, as a veteran of multiple high danger postings, questions 
of safety and security will have my complete attention. The safety and 
security of American citizens and our talented Embassy personnel and 
their families will be my highest priority, if confirmed.
    Mr. Chairman, thank you for the privilege of appearing before the 
committee and considering my nomination. I look forward to your 
questions.


    The Chairman. Thank you, and thank you all.
    I will defer to our ranking member, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    While I agreed to this panel, one of the challenges of 
having a large set of nominees with substantive geographic and 
jurisdictional issues is the ability to ask the questions. I 
see there are other colleagues. So I would like to reserve the 
right to come to a second round because I do not think I will 
get to all of my questions.
    The Chairman. Sure, absolutely. By the way, thank you for 
letting us have this near the end of this Congress. I very much 
appreciate that.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Henzel, despite repeated assertions that there is no 
military solution to the conflict in Yemen, we have not seen an 
investment in a robust diplomatic strategy, and we, from my 
perspective, continue to pay only lip service to the support of 
the U.N. Special Envoy Martin Griffiths' efforts to bring the 
warring parties to the negotiating table in Sweden, hopefully 
as soon as this week.
    In fact, the administration has argued against something 
that the Senate is presently considering, the Sanders-Lee 
resolution to remove U.S. forces from unauthorized hostilities 
in Yemen because of the prospects for renewed talks under U.N. 
auspices. But we have seen this pattern of hope for new talks 
followed by spoilers and collapse time and time again.
    So can you explain to me very specifically why there is 
such optimism about this particular set of talks in Sweden? And 
what specifically should the United States be doing? What 
leverage or conditions should we apply to ensure that this 
round of talks is different than all other previously failed 
rounds of negotiations?
    Mr. Henzel. Senator, thank you. Those are all very 
important issues that you raise. You are correct. There is no 
military solution to the conflict, and it is a tragedy what has 
been happening in Yemen.
    The administration is working to end the hostilities. It is 
supporting the efforts of the U.N. Special Envoy Martin 
Griffiths, and it is supporting him by engaging with important 
parties to the conflict.
    The humanitarian crisis is a tragedy. Millions are at or 
near starvation. The U.S. has put almost a billion dollars 
toward alleviating the humanitarian crisis. The Saudis and the 
Emiratis have made similar efforts. Iran, however, has provided 
nothing to address the humanitarian side of the crisis, but 
instead has been exacerbating the military conflict with a wide 
range of weapons that range up to ballistic missiles and 
advanced UAVs.
    The administration is determined to both address the 
humanitarian crisis, support peace efforts, and ensure that the 
result is not an Iranian proxy on the southern border of Saudi 
Arabia----
    Senator Menendez. I do not mean to interrupt you, but my 
time is limited. And I appreciate the overview, which I know. I 
had two specific questions which I would like answered.
    Number one, why is there so much optimism about this 
particular round of talks compared to the past where we have 
had failures? Can you give me some insight into that? I will 
start there, and then we will move to the next one.
    Mr. Henzel. Well, sir, I think it is appropriate to have 
measured expectations for this immediate round. I think it 
would be a great success if Mr. Griffiths were able to get the 
parties to show up, first of all, which the Houthis did not do 
during his last round.
    Griffiths has also advanced some confidence building 
measures in order to get the process started, and actually a 
couple of those have come about.
    First of all, a plane-load of wounded Houthis has gone to 
Muscat for medical treatment. This is something that Griffiths 
was not able to accomplish last time. It happened this time in 
no small part because the United States weighed in with a 
number of the parties, most importantly the Saudis, to make 
sure that this happened. So now that the Houthis have arrived 
in Muscat, I am more optimistic that their delegation will go 
to Sweden.
    Griffiths has also been pushing for prisoner exchanges as a 
confidence building measure. I saw in the news today that it 
appears that one of the first exchanges has actually taken 
place.
    So, again, I do not think it is appropriate to be over-
optimistic about this immediate first round, but we have seen a 
couple of small signs of initial progress. And I think we have 
great confidence in Griffiths, and I think that if he can get 
the parties to show up in Sweden this time, there is the 
prospect of getting a substantive process started.
    Senator Menendez. So that is a much more measured view of 
these talks.
    Let me ask you this. The Associated Press, Human Rights 
Watch, Amnesty International, the U.N. Panel of Experts on 
Yemen have all issued reports detailing the torture of Yemeni 
detainees by Yemeni forces receiving support from the United 
Arab Emirates. There are also allegations that at times UAE 
forces themselves have directly participated in the torture and 
illegal detention of Yemeni detainees in a network of secret 
prisons.
    Mr. Henzel, my staff has told me that you read these 
reports. Can you confirm for me today that you did so? Have you 
read these reports?
    Mr. Henzel. No, sir, I have not. I have been based in 
Riyadh for the last couple of years focused on Saudi issues.
    Senator Menendez. In preparation for this hearing, you have 
not read these reports?
    Mr. Henzel. I have heard of reports. I have heard of the 
U.N. Panel of Experts' statement from January of 2018 I 
believe. My colleagues in the Department--first of all, the 
Department is very concerned about these reports, and my 
colleagues in the Department tell me that they are looking into 
these, in large part, to answer questions from this committee 
about it.
    Senator Menendez. Well, I would hope that before we confirm 
you, that you are going to get a chance to read these reports.
    If you were confirmed as the Ambassador to Yemen, what is 
going to be your role in investigating the allegations of 
illegal detention and torture?
    Mr. Henzel. Sir, the Department has approached the Emirati 
Government about this and is seeking answers from them.
    Senator Menendez. Okay. So let me go back to my question. 
If you were confirmed--you are now the Ambassador of the United 
States for Yemen--what do you envision your role, not the 
Department's role, being in this regard?
    Mr. Henzel. Sir, if confirmed, I will also pursue answers 
to this question from the Emirati Government and any other 
places we can look.
    Senator Menendez. I have a lot more questions, Mr. 
Chairman, but I will yield for my colleagues.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Mr. Henzel, in your prepared statement, you 
write, quote, if confirmed, I will work to advance our 
country's key foreign policy and national security interests in 
Yemen. Unquote. And you go on to list those national security 
and foreign policy interests.
    The first U.S. national security interest you mention is 
supporting the U.N.-led efforts towards a negotiated cessation 
of hostilities and a comprehensive peace agreement in Yemen.
    Why do you believe the cessation of hostilities and a 
comprehensive peace agreement in Yemen is in the national 
security interests, not just the humanitarian interests, of the 
United States?
    Mr. Henzel. Well, sir, the conflict in Yemen, first of all, 
of course, is a terrible humanitarian catastrophe. But beyond 
that, from the point of view of our security interests, it has 
provided an opportunity for Iran to advance its goals in the 
region. Iran's involvement has become more and more worrying 
with each year of the conflict. So for that reason alone, I 
think we have an important interest in seeing a cessation of 
hostilities and a political settlement that involves all Yemeni 
parties, including the Houthis who are part of Yemen.
    Furthermore, as I mentioned, having a client of Iran secure 
on Saudi Arabia's southern border and next to the Bab Al-Mandab 
where they could launch missiles whenever it is convenient to 
Iran would clearly be a serious problem for our national 
interests.
    Senator Young. Just to fill in a little bit, using your own 
language, you mentioned Iran and how their ambitions in the 
region could be furthered by the perpetuation of this conflict 
and destabilization of Yemen moving forward.
    You mentioned in your written testimony local power vacuums 
in ungoverned spaces that have been created by the civil war, 
that the Houthis and terrorists have exploited to threaten 
important partners in the region, Saudis and others. You also 
say that the civil war in Yemen has complicated our ongoing 
counterterrorism efforts.
    So particularly for my colleagues who do not yet share a 
sense of urgency on the national security imperative for ending 
the civil war, let me summarize what the Trump administration's 
nominee to serve as our next Ambassador in Yemen has said here 
today.
    You have testified the ongoing civil war in Yemen has 
exacerbated the world's largest food security emergency, 
created power vacuums--I know I am being redundant, but this is 
very important--that the terrorists have exploited, facilitated 
Iran's ambitions, and complicated our counterterrorism efforts.
    Mr. Henzel, I will not ask you to comment on the following 
because I know these decisions are made well above you. 
However, if the ongoing civil war has exacerbated the world's 
largest food security emergency and created these power vacuums 
and created further dangers of terrorism, it would seem we 
should use all available leverage to pressure the combatants to 
bring the civil war to an end.
    I have been arguing for some period of time, frankly, that 
we have not done that. We have leverage, particularly with the 
Saudis, and given the national security interests that the 
civil war is undermining, I still say we should use all of that 
leverage to achieve a negotiated cessation of hostilities and a 
comprehensive peace agreement.
    That is why I and Senator Shaheen and others have 
repeatedly called for this. And in my view, we clearly have not 
used all available leverage with the Saudis. So this is one of 
my reasons why we have arrived where we have arrived 
legislatively as a body here in the United States Senate, and 
that is why Senate Joint Resolution 54, despite the opposition 
of the administration, is before this body.
    Mr. Henzel, on October 30, Secretary Pompeo issued a 
statement, which you are familiar with, on ending the conflict 
in Yemen. He called for the Houthis to stop missile and UAV 
strikes, and he called on the Saudis, with whom, again, we have 
partnered in this conflict, to stop airstrikes in populated 
areas in Yemen.
    On that very same day, Secretary Mattis called for a 
ceasefire in the next 30 days, including ceasing dropping of 
bombs.
    Now, by my count, 30 days from October 30 expired on 
November 29.
    Mr. Henzel, given the clear demand of our Secretary of 
State and our Secretary of Defense, have the Saudis ceased 
dropping bombs in Yemen?
    Mr. Henzel. Senator----
    Senator Young. Yes or no, sir.
    Mr. Henzel [continuing]. No, not completely, sir. No. The 
Saudis and the Emiratis dialed back their military operations, 
especially around Houdeidah. My understanding is that the 
current situation around Houdeidah remains generally static. 
There have been some exchanges of fire across the line of 
control there, but there has been a reduction in the violence.
    Senator Young. Okay.
    So according to local media reports cited by OXFAM, there 
have been repeated airstrikes since November 29, including in 
Houdeidah, Hajjhah, Sana'a. That includes 48 airstrikes 
yesterday alone.
    Mr. Chairman, with unanimous consent, I request permission 
to enter this list of airstrikes in the record.
    The Chairman. Without objection.
    [The information referred to above follows:]





               Airstrikes in Yemen Since 29 November 2018

  <diamond> 03 Dec: Al Hudaydah governorate, Al Mina: 4 civilians were 
        killed and 3 injured when airstrikes hit the seaport area in Al 
        Mina district.

  <diamond> 03 Dec: Sa'ada governorate, Kitaf Wa Al-Boqe'e district: 
        Four civilians were killed and another nine civilians, 
        including a child, were injured by an airstrike that hit a 
        vehicle in the Tebaq area in Kitaf Wa Al-Boqe'e district in 
        Sa'ada.

  <diamond> 03 Dec: Sa'ada governorate, Baqim district: A civilian was 
        killed and another civilian was injured by an airstrike in 
        Baqim district in Sa'ada.

  <diamond> 03 Dec: Sanaa governorate, Sanhan: Houses were damaged when 
        5 airstrikes hit Jirban in Sanhan district.

  <diamond> 02 Dec: Al Hudaydah governorate, Bajil: The vocational 
        training institute in Al Qurar in Bajil was damaged by 2 
        airstrikes.

  <diamond> 02 Dec: Al Hudaydah governorate, Ad Durayhimi: Houses and 
        farms were damaged by 18 airstrikes that hit Ad Durayhimi city 
        and other areas in the district. The airstrikes also caused 
        damage to the offices of the local branch of the General 
        People's Congress (GPC).

  <diamond> 02 Dec: Sa'ada governorate, Baqim district: Three civilians 
        were killed by airstrikes that hit Qama'il area in Baqim 
        district in Sa'ada.

  <diamond> 02 Dec: Al Hudaydah governorate, As Sukhna: Houses were 
        damaged when airstrikes hit areas in the north of As Sukhna 
        district.

  <diamond> 02 Dec: Al-Jawf governorate, Al-Matammah district: Al-
        Mansaf government compound was damaged by airstrikes in Al-
        Matammah district in Al-Jawf.

  <diamond> 01 Dec: Sa'ada governorate, Baqim district: A civilian was 
        killed by airstrikes that hit house in Baqim district in 
        Sa'ada.

  <diamond> 01 Dec: Sanaa governorate, Nihm: Houses were hit by 10 
        airstrikes in different areas in Nihm district.

  <diamond> 30 Nov: Sa'ada governorate, Baqim district: Houses hit by 
        airstrikes in Baqim district in Sa'ada.

  <diamond> 30 Nov: Al Bayda governorate, Radman Al Awad: A 
        telecommunications network was damaged by 4 airstrikes in 
        Hawran in Radman Al Awad district.

  <diamond> 30 Nov: Al Hudaydah governorate, Al Mina: 2 civilians were 
        killed and 4 injured, including 2 women and 1 child, when 
        drones hit 4 houses in the Arba'ah Wa Ishreen (24) neighborhood 
        in Al Mina district.

  <diamond> 29 Nov: Al Hudaydah governorate, Bayt Al Faqih: 1 civilian 
        was killed and 7 injured, including 2 women, when an airstrike 
        hit a house in Al Karamah village in Al Jah of Bayt Al Faqih.

  <diamond> 29 Nov: Al Hudaydah governorate, Ad Dahi: 1 child was 
        injured when an airstrike hit a water drill in Ad Dahi 
        district.

  <diamond> 29 Nov: Al Hudaydah governorate, At Tuhayat: Houses and 
        farms were hit by several airstrikes in the west and south of 
        At Tuhayat.

  <diamond> 29 Nov: Sa'ada governorate, Al-Safra'a district: A child 
        was injured when houses were hit by airstrikes in Noshur area 
        in Al-Safra'a district in Sa'ada.

  <diamond> 29 Nov: Sa'ada governorate, Haydan district: A car was 
        damaged by airstrikes that hit the main road in the west of 
        Haydan district in Sa'ada.

  <diamond> 29 Nov: Sa'ada governorate, Razih district: A woman was 
        killed by an airstrike that hit Sha'ban area in Razih district 
        in Sa'ada.

  <diamond> 29 Nov: Sa'ada governorate, Baqim district: Houses and 
        farms were hit by airstrikes in Baqim district in Sa'ada.


Source: Civilian Impact Monitoring Project (UN High Commissioner for 
Refugees).



_______________________________________________________________________


    Senator Young. So this is a list of airstrikes in Yemen 
just since November 29 that has been compiled by the U.N. High 
Commissioner for Refugees' Civilian Impact Monitoring Project.
    I will not ask you to comment, Mr. Henzel, but I do not 
believe it is in our national security interests to do nothing 
when our Secretaries of State and Defense have been so clearly 
and directly blown off by Riyadh.
    Thank you. I yield back.
    The Chairman. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Henzel, I am going to come back to you, but I will give 
you a break for a moment. I wanted to bring Ambassador Perez 
into the conversation here for a moment because there are going 
to be some pressing issues that you are going to be dealing 
with, should you be confirmed.
    I wanted to ask you about a number of reports that have 
emerged from senior diplomats who have given rise to concerns 
that the Trump administration has exacted political revenge at 
the State Department on career diplomats who worked on 
President Obama's foreign policy priorities, including the Iran 
deal, the Paris Climate Accord, and relationships with Cuba, by 
failing to promote them or by moving them into leadership 
positions that were clearly meant as a signal to them about 
their prior work.
    I understand the Inspector General is probing these 
allegations today. Do you have any update as to the Inspector 
General's work on this matter? And do you think that the proper 
protections are in place today to protect our career diplomats 
from an overtly political agenda to push them out or damage 
their careers, given what they have worked on previous 
administrations?
    Ambassador Perez. Senator, thank you very much for that 
question.
    First of all, the kinds of things that you are talking 
about right now are illegal. They are illegal under both title 
5 and under the Foreign Service Act. And we have those 
protections in place.
    I, unfortunately, do not have an update on where that 
investigation is. I am currently serving as the Ambassador to 
Chile. So I am aware of these cases from what I have read in 
the press. My understanding is there are two different 
investigations: one for the Office of the Inspector General, 
one for the Office of Special Counsel.
    And so, if confirmed, my job will be to make sure that our 
employees understand what their protections are under the law 
and to make sure that we do work with those entities to give 
the documents that they need and to support those 
investigations going forward.
    Senator Murphy. And if there are any recommendations from 
these reviews, to implement those recommendations.
    Ambassador Perez. Absolutely. Absolutely, Senator.
    Senator Murphy. Thank you.
    Mr. Henzel, thank you for the time in our office. Thank you 
for your commitment to this very difficult job.
    I wanted to raise one additional issue with you. Some 
concerning recent reports from ``The Guardian'' newspaper have 
found that weapons from the United States that were given to 
our partners in the Saudi-led coalition have ended up in the 
hands of militias that are linked to Al Qaeda and ISIS. These 
weapons include rocket launchers, grenades, and rifles.
    We also hear repeatedly from researchers and partners and 
nonprofits on the ground that the coalition provides arms and 
financing for radical Salafist groups, militias that are often 
the most zealous fighters against the Houthis. This is not 
something that the United States is engaged in on the ground. 
This is something that our coalition partners are engaged in on 
the ground.
    Are you aware of these reports? Do we have end-use 
requirements that prohibit the transfer of weapons to third 
party groups? And what is the U.S. policy towards the 
coalition's support for these dangerous Salafist militias 
inside Yemen?
    Mr. Henzel. Senator, yes, there are end-use requirements in 
place on weapons that are sold to partners of the United States 
overseas, and the U.S. Government does check to ensure that 
those are enforced. I have heard of these reports. I understand 
that they are being looked into.
    As for extremists on the ground in Yemen, yes, my 
understanding is that there are individuals and small groups 
that are mixed in with some of the groups that partners are 
supporting, especially the United Arab Emirates. This is 
something that the United States has engaged with our partners 
about, and I would be happy to take the question back to get 
some more details for you.
    Senator Murphy. Does the administration or the embassy have 
independent knowledge, separate and aside from the report in 
``The Guardian,'' that these weapons ended up in the hands of 
these militia groups?
    Mr. Henzel. I do not know, sir. I can take that question 
back for you.
    Senator Murphy. Okay. Thank you and thank you for your 
acknowledgement that this is a deepening problem on the ground. 
It is not something that we talk about enough in the context of 
the war inside Yemen. This has happened in Syria. This has 
clearly happened in Afghanistan. Time and time again, when we 
give weapons to people that we think are on our side, they end 
up getting into the hands of people that we are, in fact, doing 
battle with. If that is happening inside Yemen today, the 
weapons that we are providing to the Saudi coalition are ending 
up in the hands of groups aligned with Al Qaeda and ISIS, it is 
more and more evidence that we need to get out of this 
partnership as quickly as possible.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Mr. Henzel, I appreciated the opportunity to dialogue with 
you earlier. The fact that you have already served once in 
Yemen, 1997 to 1999, that your service in Riyadh now, I think 
makes you a good candidate for this position.
    One of the issues we talked about in my office was making 
sure that we have a meeting of the minds about the cause of the 
civil war in Yemen. And I do not want to put words in your 
mouth, but my understanding is while Iran is engaged in a lot 
of activity with the Houthis that we would be opposed to, just 
as they are engaged in other activity in the region we would be 
opposed to. Senator Coons and I just did a letter yesterday 
about prisoners being held by Iran, including Americans.
    The civil war in Yemen is driven or there is an origin to 
that civil war, which is the Houthis' dissatisfaction as a 
minority with the way they are being treated by the government. 
And that is really the origin of the civil war, whatever Iran's 
participation in it is.
    Would you agree with me in that statement?
    Mr. Henzel. Sir, it is a long story going back, the origins 
of the Houthis. At their very first beginnings, they had 
grievances with the regime of Ali Abdullah Saleh and their 
position in Yemen. They turned to violence to address those 
problems. Over the course of, I believe, six wars between the 
Houthis and the central government, their strength grew until 
they were in a position where they were able to overrun the 
capital.
    Senator Kaine. And some of their concerns were the way they 
were treated as a minority, and other concerns were corruption 
by the government that they objected to. I mean, they had a 
whole series of sort of concerns that were fomenting their 
dissatisfaction with the central government. Correct?
    Mr. Henzel. At their origins, they had a number of concerns 
like that. But as I said, they turned to violence to address 
those problems and touched off a chain of conflicts that has 
resulted in the terrible situation in Yemen today.
    Senator Kaine. And then Iran has been exploiting that 
division. They exploited a division in Bahrain when the 30 
percent Sunni population essentially rules the 70 percent Shia 
population. There was dissatisfaction, and Iran moves in to 
exploit that dissatisfaction, which is not be excused and must 
be countered.
    The reason I raise this issue is I hear the Saudis and also 
many from this administration talk about this war in Yemen. 
They act as if it is all caused by Iran. And there is a very 
dangerous blindness if we look at the problem that way.
    The war in Vietnam between France and Vietnam was because 
of a failed colonial project. The U.S. had no equities in that 
war in 1954 after the French defeat in Dien Bien Phu. But we 
got convinced that it was not a colonial issue, that it was a 
battle against communism. And we took over the failed French 
colonial project in Southeast Asia, and it turned into this 
massive challenge for us. We misread the problem. We did not 
recognize that a native population had real concerns about 
their own politics, and we tried to interpret through our lens.
    I very much worry that administration policymakers and the 
Saudis are interpreting Yemen as if it is just an instance of 
Iranian adventurism. And I think if you look at the problem 
just from that lens, you miss what the problem is.
    And I appreciated the conversation that we had about it. We 
have got to deal with Iranian bellicosity in the region, but if 
we are not also willing to deal with legitimate grievances of 
populations that feel like they are under the thumb of a 
corrupt or unresponsive central government, then we will 
misunderstand. And I really will count on you giving our 
policymakers good advice about that, should you be confirmed.
    I want to say to you, Ambassador Perez, congratulations on 
your nomination and your service.
    Virginia is a very militarily connected State, but we also 
have 3,500 FSOs who call Virginia home. And I think the 
American public has gotten really good, whatever they think 
about the status of wars abroad, at really sincerely thanking 
our men and women who serve in the military. But we are not as 
good at thanking our other civil servants who serve in 
difficult positions abroad. Many FSOs get posted to places that 
they might not have chosen. They get posted to places where 
they cannot take their family. And some of you on the panel 
have taken such posts. So I think your work in this new 
position is very important to advocate for--and hopefully some 
of us will help you to advocate for the needs of some wonderful 
public servants.
    Finally, I want to ask you, Mr. Culvahouse. Congratulations 
on your nomination. This is an incredibly important position. I 
am very intrigued with the notion of the Quad as our military 
and other leadership discuss a loose affiliation, military and 
otherwise, between the United States, Japan, Australia, and 
India. And I would like, if I could, ask one question as I 
conclude. Offer your thoughts about the utility of this idea in 
terms of both security cooperation and, more broadly, economic 
cooperation in the Indo-Pacific.
    Mr. Culvahouse. Thank you for your question, Senator.
    I frankly need to know more about the Quad. I think in the 
briefings I have received, people have been excited about it, 
excited about the opportunity. They think it should be a 
priority that I should look at, if I am lucky enough to be 
confirmed. And certainly the challenges, the threats, and the 
geopolitical competition, if you will, from China in the region 
is such that I think the Quad initiative is one that definitely 
should be pursued.
    Senator Kaine. Excellent. Well, I will just remind 
everybody that the Big 10 has 12 teams now, and the Big 12 has 
10 teams. So just because we call it a Quad does not mean we 
cannot have other nations that want to join in also to 
participate. [Laughter.]
    Senator Kaine. And I would encourage you on that as well.
    Mr. Culvahouse. Well said, sir.
    Senator Kaine. Thanks, Mr. Chair.
    The Chairman. I am just reading a note. At this point in 
time, the witnesses are saying, thank goodness for Yemen. 
[Laughter.]
    Senator Menendez. Not that quick, Mr. Chairman.
    The Chairman. Okay.
    I do want to just say--I know you are in Saudi Arabia now 
as the DCM. We heard the clearest testimony I have ever heard 
from intelligence this morning. I have been here 12 years. I 
have never heard ever a presentation like was made today. There 
is no doubt in my mind if the Crown Prince was in front of a 
jury, he would be convicted unanimously of murder in 30 
minutes.
    I do hope that somehow the administration will find a way 
to speak to this. I know that we are going to take this issue 
up, and it ties into Yemen, as you know, because of the 
conflict that is taking place there. To allow a crown prince to 
plan the sawing up of a--a sawing up of a journalist, to 
monitor that, to know that, and for that to go without any 
statement from the United States of America of condemnation.
    Could you share with me a little bit about how in a culture 
like Saudi Arabia that affects a close-knit royal family and 
their sense of what they are able to continue to do once the 
world knows they have done this and they move on with impunity?
    Mr. Henzel. Well, Senator, they are very important issues.
    The administration has condemned what happened to Mr. 
Kashoggi. It was an atrocity. And it continues to press for 
accountability for the persons responsible.
    I think inside Saudi Arabia--I left about a week after 
these events came to light, but at that point, it seemed as if, 
unfortunately, popular opinion was rallying around the royal 
family. There is a sense that the leadership was being unfairly 
attacked from outside.
    But however that progresses, the administration believes 
that there needs to be accountability for what happened to Mr. 
Kashoggi.
    The Chairman. Senator Booker?
    Senator Booker. Thank you very much.
    Forgive me for not being here when a lot of the other 
questions were asked about Yemen, but I am going to go right 
there as well and just ask, first and foremost--really there is 
a counterterrorism issue that keeps being talked about. And in 
the midst of the conflict in Yemen between the Houthis and the 
coalition, Al Qaeda in the Arabian Peninsula and other groups 
really do remain potential threats. We heard about that in our 
classified briefing.
    But, Mr. Henzel, in your testimony, you noted that the war 
Yemen has complicated our ongoing counterterrorism efforts. Is 
it possible that as long as the war continues, Al Qaeda in the 
Arabian Peninsula will find plenty of ungoverned space to 
thrive and that this is actually going to create worse of a 
threat?
    Mr. Henzel. Senator, I cannot predict how the situation 
will progress, but it is definitely the case that the war in 
Yemen, which has been fueled and exacerbated by Iranian 
weapons, has made it more difficult for the United States to 
pursue its counterterrorism goals mostly in the eastern and 
southern part of Yemen.
    Senator Booker. And so how would you characterize right now 
AQAP's current power position in Yemen as it relates to threats 
to the United States?
    Mr. Henzel. The UAE, sir?
    Senator Booker. No. AQAP.
    Mr. Henzel. AQAP. Sorry.
    AQAP remains active in ungoverned spaces in eastern and 
southern Yemen. The U.S. is engaged with its counterterrorism 
partners, including the UAE and Saudi Arabia, to push back on 
that threat. There have been a number of notable successes over 
the past year or so, including the killing of an important 
leader of Al Qaeda. This is an effort that the administration 
will continue, but bringing about a cessation of hostilities 
for the other conflict in Yemen, the Houthi war, and the 
establishment of an interim government that can better control 
Yemeni territory will certainly make the counterterrorism 
struggle easier for the U.S. to succeed at.
    Senator Booker. I am sure you have heard today from my 
colleagues this bipartisan concern about the war, about the 
humanitarian consequences, the god-awful realities on the 
ground for children and other civilians. And maybe for me--and 
you may have said this already, but can you make it clear to me 
at least what policy changes you are going to advocate, should 
you be confirmed, that are going to be different from years 
past? Are you planning a different policy agenda to try to deal 
with this crisis that I have watched now over many months just 
grow worse?
    Mr. Henzel. Well, Senator, the administration's policy, 
shaped here in Washington and in consultation with Congress, 
remains to support efforts to bring about a political 
settlement among the parties in Yemen, which include the 
Houthis. And in our assessment, the best way to bring that 
about is to continue to support the efforts of the U.N. Special 
Envoy Martin Griffiths.
    And in fact, this week he is likely to convene the parties 
in Sweden. There have already been two important confidence 
building measures carried out: the transfer of some Houthi 
wounded to Muscat for treatment, and some discussions about 
prisoner exchanges, which seem to be bearing fruit.
    As I said earlier, I think it is appropriate to be cautious 
when assessing the prospects for some immediate breakthrough. 
But as a first step, bringing the parties together will be more 
than anyone has been able to do for the past couple of years.
    Senator Booker. Well, again, I am grateful that you are 
willing to step into what I think is one of the more urgent 
humanitarian crises on the planet earth with implications for 
the region. And I am hoping that as you step up to this very 
important post, that what you said in your answer to me 
continues to be the case, which is your willingness to engage 
with Congress. And right now, I have a lot of frustrations with 
how the administration is engaging or not engaging, and I am 
hoping that from your position, you will cooperate fully with 
us in sharing information and, using your word, consultation.
    But, again, thank you for your willingness to step forward 
and put yourself up for such an important post, not just for 
the United States but for all of humanity. There is an 
indivisibility to human dignity, and the assaults on human 
dignity that are happening in Yemen diminish the dignity of 
this country and humanity as a whole. So thank you.
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Last Wednesday, we had a vote on the Senate floor on the 
Yemen law and the War Powers Act. But on the same day, 
Secretary Pompeo announced $131 million in additional food 
assistance for Yemen to be provided through U.N. World Food 
Program. However, that announcement came after the World Food 
Program had already raised the alarm, that in recent weeks, 
imports through Houdeidah have fallen by nearly one-half at a 
time when half of the country's population is on the brink of 
starvation, and when 85,000 children have been estimated to 
have died from starvation in Yemen.
    How does the administration, Mr. Henzel, expect the World 
Food Program and other agencies to successfully implement food 
distribution with this new funding without also sufficiently 
addressing humanitarian access constraints by parties to the 
conflict, including U.S. allies, the Saudis, the Emiratis? How 
do we do that? How do we get their cooperation? You can say 
that you are going to send in the food. The kids are dying. But 
we have other countries who are allegedly our allies who just 
have not been cooperating and, in fact, are the cause of the 
problem.
    Mr. Henzel. Senator, you are absolutely right that 
humanitarian access and access for commercial goods is of 
utmost importance, given the horrible humanitarian situation in 
Yemen.
    When problems have come up from time to time over the last 
couple of years, like the one you just described in Houdeidah, 
the administration has engaged with the U.N., with the Saudis, 
with any party we could in order to try to straighten out these 
bottlenecks. The administration was engaged last week over some 
difficulties in the Port of Aden.
    I am not familiar with the news you just mentioned, but I 
am sure that the administration at senior levels will be 
engaging with the Saudis if they are the source of the problem. 
The American embassy in Riyadh also engages regularly with the 
Saudi officials who manage these permits, and I am sure they 
will be doing that as well.
    Senator Markey. Well, you know, my wife retired as a two-
star admiral and had been the chief of behavioral medicine at 
the National Institutes of Health. And what she always tells me 
is that individuals and countries are the same. You either have 
reenactment or you have reconciliation.
    So my fear here is we are just going to go through 
reenactment, that we can say we are going to send in the food, 
but if the Saudis, the Emiratis are not really going to 
cooperate, then we are just going to see further exacerbation 
and, in fact, reenactment of what we have been going through. 
So without firm commitment by our government to ensuring that 
these countries get out of the way so we can get to these kids, 
we are just going to see a dramatic additional increase in 
unnecessary deaths, and without access, it just is not going to 
work.
    So I like the concept, but that is only 20 percent of life. 
80 percent of life is execution. So if we cannot pull this off, 
we cannot get in there, then it is just going to wind up with 
additional futility.
    So I just say that to you, Mr. Henzel. We have high 
expectations that this problem is going to be alleviated and 
not exacerbated.
    On Armenia, my question is it seems unlikely that the Trump 
administration will change its longstanding U.S. policy on how 
we refer to the Armenian genocide. How will you address calls 
by the Armenian community to call what the 1915 slaughter was, 
a genocide?
    Ms. Tracy. Senator, thank you for that question.
    Let me be absolutely clear. The Trump administration and I 
personally acknowledge the historical facts of what took place 
at the end of Ottoman Empire, the mass killings, the forced 
deportations, and marches that ended 1.5 million lives, and a 
lot of suffering. And I will, if confirmed, do everything in my 
power to acknowledge and respect the losses and the suffering 
and commit myself to participating in any remembrance 
activities.
    Senator Markey. Well, it is time for us just to stand up 
and call it what it was. It helps us in the future to have 
credibility.
    The peaceful transfer of power in May of 2018 seemed to 
present an opportunity, but there has been a poor track record 
on the previous government. So what are we going to do to 
support the Armenian Government in promoting reforms, either 
diplomatically or through our assistance?
    Ms. Tracy. Senator, thank you for that question.
    It was a very remarkable moment what happened this past 
spring to see a peaceful transition of power. And since then, 
we have mobilized resources to focus on three areas. Fighting 
corruption, which is a place where this new government has also 
set a high priority, and we are working to try to assist them 
on that. Continuing to strengthen civil society where we have a 
long record in Armenia and where I think that played an 
important role in what happened this past spring. And 
supporting an independent media. These are three areas that 
help maintain accountability, I think buttress the checks and 
balances that are necessary in a democratic society. And so 
those are the areas where we are going to work to help support 
the democratic aspirations of the Armenian people.
    Senator Markey. I hope so. Armenians in America are maybe 
the most successful ethnic group. We want to make sure that the 
Armenians who stay can enjoy all of their God-given abilities 
as well, and I think we have to help to just continue to 
promote the reform they are going to need.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me ask all of the nominees first a question that I 
would like your verbal response to. Will you provide this 
committee and members thereof with a timely, honest, and candid 
response to inquiries that are put to you, either if you are an 
Ambassador nominee in a situation on the ground, or if you are 
heading a department with reference to the jurisdiction of your 
department? Give me a verbal answer to that.
    Mr. Culvahouse. Yes, Senator.
    Ambassador Perez. Yes, Senator.
    Mr. Henzel. Yes, Senator.
    Mr. Busby. Yes, Senator.
    Ms. Lynch. Yes, Senator.
    Ms. Tracy. Yes, Senator.
    Senator Menendez. And I appreciate that because for us to 
determine what is the right foreign policy anyplace in the 
world, having an honest assessment of what is going on is 
critical. So I know that while you are nominated by the 
President, you are advised and consented to by the United 
States Senate. And so, therefore, you work for the whole of the 
American government, and it is important for us to know, as we 
have experienced most recently on some issues.
    Let me turn back to you, Mr. Henzel. I am perplexed and I 
have given our government and the Saudis the benefit of the 
doubt, but no longer--about our assistance to them under the 
guise that we would create less terrible humanitarian 
consequences as a result of our military assistance to them and 
our strategic information to them as to how they go about their 
missions.
    Why is it, since you have been the charge d'affaires, that 
you think that they cannot capture that and succeed in doing 
it? Is it a lack of will? Is it a lack of capacity, experience? 
What is it? Because it hard to see that the bombing of a school 
bus and other civilian targets is a perfection of what we are 
doing.
    Mr. Henzel. Yes, sir. You are right. These civilian 
casualty incidents are unacceptable. Even one would be and the 
fact that there has been a chain of them is a tragedy.
    The U.S. military has attempted to assist the Saudis and 
the Emiratis with their targeting procedures, their overall 
operations. I have seen a lot of this work taking place. I 
believe there have been some results, but clearly the results 
are not nearly adequate yet. And the administration is 
committed to continuing to press the Saudis to ensure that 
there are no more of these incidents.
    You asked why there has not been an improvement. My 
impression from being there is that while the operational 
levels of the Saudi military have taken on board the lessons 
they have gotten from the U.S. military and through their own 
desire to avoid more of these problems, there is still a lack 
of discipline in some parts of the Saudi command structure, and 
they sometimes bypass all the good procedures that they have 
set up. And we often find that that is at the root of these new 
civilian casualty incidents.
    Senator Menendez. The problem with that is when you bypass 
the procedures and there is no consequences for bypassing and 
you allow that bypassing to go on with impunity at the end of 
the day.
    Let me turn to Ms. Tracy. Do you acknowledge that from 1915 
to 1923 nearly 1.5 million Armenian men, women, and children 
were killed by the Ottoman Empire?
    Ms. Tracy. Yes, Senator. As I stated, the administration 
and I acknowledge the historical effects that you have 
mentioned.
    Senator Menendez. You can keep your microphone on because I 
am going to have a series of questions for you.
    Do you acknowledge that on May 24th, 1915, the allied 
powers of England, France, and Russia jointly issued a 
statement explicitly charging for the first time ever another 
government of committing crimes, ``against humanity and 
civilization?''
    Ms. Tracy. Senator, I am not aware of that particular 
event.
    Senator Menendez. I commend it to your attention, and ask 
that you give me a written response after you read it.
    Ms. Tracy. Yes, sir.
    Senator Menendez. Do you acknowledge that the United States 
Holocaust Memorial Council, an independent federal agency, 
unanimously resolved on April 30, 1981 that the United States 
Holocaust Memorial Museum would document the Armenian genocide 
in the museum and has done so through a public examination of 
the historic record?
    Ms. Tracy. Senator, I will provide a written 
acknowledgement to you of that.
    Senator Menendez. Do you acknowledge that Henry Morgenthau, 
the United States Ambassador to the Ottoman Empire at the time, 
said that the Turkish Government's deportation order for the 
Armenians was, ``a death warrant to a whole race'' and an aim 
which, ``they made no particular attempt to conceal'' in their 
discussions with him?
    Ms. Tracy. Yes, Senator, I acknowledge the facts of that 
reporting of Ambassador Morgenthau.
    Senator Menendez. Would you discipline or otherwise punish 
an employee of the U.S. embassy in Armenia for an honest 
remembrance of the Armenian genocide?
    Ms. Tracy. Senator, I would expect that, as with myself, we 
follow the policy of the administration, and the policy is that 
we acknowledge the historical facts of the events of 1915 as a 
mass atrocity and that we participate in any remembrance 
activities.
    And I will just say as a senior leader in the Foreign 
Service, I am always open to debate on my team. I do not punish 
people for expressing their viewpoints. But as members of the 
executive branch, at the end of the day we support the 
President's policies.
    Senator Menendez. This is the problem with nominees who 
come before us--not you particularly--that in fact, we have a 
historical reality: 1.5 million people were massacred. That is 
a genocide. And yet, we send an ambassador to a country. We 
will have them go to a memorial of a holocaust of the Armenian 
people, and yet they will not be able to call it a genocide. 
Pretty ironic. If we are not able to acknowledge the past, we 
are destined to relive it. This is not unique to this 
department. It has been going on for a while. We need to change 
that reality.
    You know, I gave you a series of questions because I am 
trying to give you all the other elements. But the reality is 
it seems that we cannot have the words come off our lips: 
``Armenian genocide.'' That is what took place. That is what 
history shows. That is what the world recognizes. That is what 
our own federal agencies like the Holocaust Museum recognize.
    So I hope that you will look at those other questions and 
give me answers in order to get to a better place.
    There are some efforts for a U.S.-Armenia tax treaty. I 
hope that you will work to advance the timely negotiation of 
this accord to help promote transparency and protect U.S. 
investors from the threat of double taxation, if you are 
confirmed.
    Ms. Tracy. Senator, if confirmed, I will be very pleased to 
look further into this issue. My understanding is that the lead 
federal agency is the Treasury Department's Office of Tax 
Policy. But I will certainly be very happy to look into this 
issue further with the Treasury.
    Senator Menendez. It is, but as the Ambassador, if you 
promote it, then we will hopefully move it along. So I hope you 
will do that.
    Ms. Tracy. Yes, sir.
    Senator Menendez. Thank you.
    Now, Ambassador Perez, I want to follow up on questions 
that Mr. Murphy raised with you. I have asked the State 
Department for a series of information, emails, memos, and 
other information with reference to the targeting of career 
employees for retaliation of their perceived political beliefs 
and other elements, which I have not received, which is the 
legitimate oversight of this committee. No different than when 
we had Benghazi hearings and a whole host of others in the 
past. So in the absence of receiving that, I will continue to 
hold nominees until I can get a response.
    But having said that, do you agree, if you were to be 
confirmed, that any such targeting of career employees, whether 
for perceived political beliefs, ethnic origin, or association 
with prior policies is illegal under federal law?
    Ambassador Perez. Senator, I do agree.
    Senator Menendez. And if confirmed, what will you do to 
communicate to the offices within your purview that any such 
targeting or retaliation is unacceptable? And how will you 
ensure that the appropriate targeting or retaliation does not 
occur?
    Ambassador Perez. Sir, I believe communication is really 
critical--Senator, is really critical in this regard. We have 
to make sure that the employees of the State Department 
understand what are prohibited personnel practices, and I think 
that would be my role, if confirmed, to do that and to make 
sure that our employees know where they can go if they believe 
that their rights have been violated. As we discussed earlier 
today, the Office of the Inspector General and the Office of 
the Special Counsel are two entities that would look at that 
review.
    There is also an accountability part of this that needs to 
be addressed. And obviously, once we have the results of those, 
to deal with accountability.
    Senator Menendez. I think I heard your answer to Senator 
Murphy. I just want to make sure. You are committed to 
implement, if you are confirmed, any of the recommendations put 
out by the Inspector General or Special Counsel?
    Ambassador Perez. Yes, sir. Again, I do not know the 
specifics of the cases right now, but yes, sir, generally the 
recommendations made by the Office of the Inspector General are 
taken very seriously by the department, and we will be 
committed to responding to those.
    Senator Menendez. Okay. Responding to does not mean 
implementing.
    Ambassador Perez. Sir, yes. To implement those questions, 
absolutely. I do not know what they are going to say, so I just 
do not know if I have the authority to do that in the job that 
I will have.
    Senator Menendez. I appreciate that. But within your 
authority.
    Ambassador Perez. Within my authorities.
    Senator Menendez. Okay. And one last question for you.
    I have, in my 26 years of doing foreign policy between the 
House and the Senate, had a real challenge with the State 
Department's lack of diversity. And America's Foreign Service 
should look like America in both gender and race and ethnicity.
    What will you do to work, since this comes under your 
bailiwick, to make the State Department more diverse than it is 
today? It is one of the worst of the federal agencies that we 
have.
    Ambassador Perez. Sir, I could not agree more. As I said in 
my statement, the State Department looks a little bit different 
today than when I joined. But we are not doing a good enough 
job, especially at the senior levels. We have to be able to 
weave diversity into the fabric of our entire lifecycle of 
talent management. So it starts, obviously, with recruitment, 
but it continues through promotion, succession planning, the 
entire talent management cycle.
    I can tell you as Chief of Mission, I work with a diverse 
group in Santiago. I am a better Ambassador because of that. I 
have a better mission because of that. We have people with 
different experiences, with different opinions. We are better 
able to represent the U.S. Government.
    So my job is going to be able to make sure people 
understand why diversity is important, and it has to be a part 
of everything that we do.
    Senator Menendez. I appreciate that.
    Mr. Culvahouse, I wonder if you understand the interplay 
with Australia and China and the influence that China has in 
Australia and the activities that China has actually taking 
place in Australia to influence elements of Australian society. 
Could you give me a sense of that, and how is it that we put 
our relationship, which started off a little rocky under the 
administration, in a way that promotes Australia as a critical 
partner in this part of the world, especially with a rising 
China that seeks to exert its influence throughout that region 
in a way that seeks dominance at the end of the day?
    Mr. Culvahouse. Yes, Senator. And it is an excellent 
question, excellent point. And other members of the committee 
have mentioned it as well.
    The fact is that China is Australia's largest trading 
partner, and that it gives it outsized influence and outsized 
opportunities to a nation that is already--let us say--
aggressive. And I know that from my commercial experience 
representing U.S. companies in the Asia-Pacific.
    The Australians have recognized some of the aggressive 
efforts to influence them, have done some housecleaning, have 
passed domestic legislation, creating a counterpart of our 
Foreign Agents Registration Act. CTE and Huawei have been 
denied the opportunity to participate in certain investments. 
There has been an investment by a Hong Kong company that is in 
the energy sector that has been denied. So I think the 
Australians are already quite sensitized to it.
    But just let me say that I view the strategic and security 
relationship between the United States and Australia to be 
strategically critical, and I, if confirmed, will make an 
assessment of efforts by third countries, third parties to 
undermine that relationship, and if there are such efforts, 
including China, I will not refrain from forthrightly reporting 
same up the chain of the department and to speak publicly if 
and as required.
    Senator Menendez. Very good.
    Finally, Mr. Barsa--and Ms. Lynch, you will forgive me, but 
you are not going to the world's worst assignment.
    This role is incredibly important in the western 
hemisphere. I have serious concerns about where we are headed 
in the hemisphere. I have serious concerns that I expressed to 
the Administrator about the continuing part of AID's mission in 
democracy and human rights. We see a backsliding in democracy 
and human rights in the hemisphere. We have seen it in 
Venezuela, of course, longstanding in Cuba, as well as the 
realities of what is going on in Nicaragua. But that is not it 
in and of itself.
    We have a series of movements across the hemisphere of 
changing constitutions under the guise of having a democratic 
process only to give people the opportunity to continue to stay 
in power for longer periods of time.
    So AID's mission on democracy and human rights is critical. 
We constantly see budgets that are sent to us that would 
dramatically cut those elements.
    I want to hear from you, if you are confirmed, will you be 
an advocate for these provisions of AID's portfolio that are 
critical, I think, to the national interests and security of 
the United States?
    Mr. Barsa. Thank you for your question, Senator.
    I share your belief in the importance of these funds and 
these activities furthering the national interest. If I did not 
believe this to be the case, I would not have accepted this 
nomination. It is a great honor given to me to be nominated to 
lead the men and women of LAC in carrying out this work.
    I can certainly, without hesitation, commit to you, members 
of the committee, that certainly any funds coming to me from 
the United States Congress to expand freedom, prosperity, and 
democracy in the hemisphere--I will ensure that they are spent 
in an efficient manner. And I will advocate for this work 
within the process within the administration.
    Senator Menendez. And as an example of that, one of our 
challenges--and I will close on this. I have a series of other 
questions which I will submit for the record. And I would ask 
you all, to the extent that I have questions sent to you, for 
the sake of time and your families here, not to belabor it, but 
give me a substantive answer, please.
    Central America. Perfect example of our own national--this 
is not being a good neighbor--our own national interests and 
our national security. The reason that people flee Central 
America is they have a choice: stay and die or see my daughter 
raped or see my son forcibly put into a gang, or flee and take 
a chance at living. Until we change the dynamics of those 
countries, we will continuously have this challenge.
    So AID's mission in part in governance and institution 
building and democracy and human rights in those countries are 
critical for our own interests and our long-term elements. So I 
hope that, if you are confirmed, you will be an advocate of 
that because I think it is critically necessary for us to 
change the dynamics of what we see at the border as a result of 
the realities of what is happening on the ground in Central 
America.
    Mr. Barsa. Thank you, Senator. I most assuredly will be an 
advocate for that.
    There is certainly a difference between what we are seeing 
on the border and what you mention is going on in the 
countries. I have always advocated for going for root causes, 
and it is the root causes that are obviously the drivers of all 
kinds of migration. And certainly, if confirmed, I will 
absolutely be working towards those.
    I am heartened by some data I have been seeing from El 
Salvador, where USAID funds worked closely with INL and the 
State Department have worked to drop homicide rates. And 
interestingly enough, with the drop of homicide rates in El 
Salvador, what we are seeing in the border is less Salvadorians 
coming into the border. So while that may not be replicated in 
the western highlands in Guatemala and Honduras, there may be 
some best practices there. But I agree with you wholeheartedly 
on the need to go to the root causes.
    Senator Menendez. Thank you, Mr. Chairman. Thank you for 
the courtesy.
    The Chairman. Absolutely.
    Thank you all for being here.
    I am going to ask one question and the rest of them I will 
do in writing to make it easier for you and those who are with 
you.
    But to Ms. Perez, section 404 of the Department of State 
Authorities Act of 2017 required the Secretary of State to 
establish a 3-year pilot program for lateral entry into the 
Foreign Service that targets mid-career individuals from the 
Civil Service and the private sector. This was something we 
pushed for and we think can enhance the department in a very 
positive way.
    It is months overdue as the statute requires. And I just 
want to have your commitment that you will implement this 
program as required by law.
    Ambassador Perez. Thank you, Senator.
    Yes. My understanding is that because of the hiring freeze, 
this program has not yet been implemented. But I really do look 
forward to working with you and the committee about what this 
program might look like. We need to get the best people we can 
find. It is very complex world we live in, and I think we need 
to look creatively and innovatively at how we staff. So I look 
forward to further discussions on this.
    The Chairman. Thank you.
    What we will do is keep the record open until the close of 
business on Thursday. I would hope that there would be some 
miraculous way to have a markup before we leave here. I do not 
know when we are leaving here with all of the things that have 
occurred. But hopefully the process you went through to prepare 
for the hearing today will make you even more prepared for the 
assignments you have upcoming. Thank you again for your desire 
to serve our country in this way, for your families in 
supporting that.
    And with that, the meeting is adjourned.


    [Whereupon, at 4:10 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
          Arthur B. Culvahouse Jr. by Senator Robert Menendez

    Question 1. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. One of the first policy initiatives I undertook during my 
tenure as chair of O'Melveny & Myers LLP was the launch of our firm-
wide ``Pro Bono Initiative.'' By formalizing and prioritizing our pro 
bono program, we set about to honor the firm's historic commitment to 
serving communities in need, and to create a platform to raise the 
prominence of our firm's pro bono efforts. Under my leadership, we 
adopted formal policies and procedures that rewarded our lawyers for 
using their skills to provide access to justice for those in need. Our 
program grew into one of the most respected in the country.
    O'Melveny's pro bono work frequently targets matters of basic human 
rights and core democratic values. These efforts include combating 
human trafficking, protecting victims of abuse and neglect, preserving 
access to high quality education for low-income children, assisting 
military veterans, ensuring access to health care and food security for 
the most vulnerable, assisting with adoption and foster care 
proceedings, and fighting for civil rights. I am extremely proud of how 
successful our program, our lawyers, and our firm have been in 
promoting human rights and democratic values, and I look forward to 
continuing this work if confirmed as Ambassador.

    Question 2. What issues are the most pressing challenges to 
democracy or democratic development in Australia? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Australia is a vibrant constitutional democracy with a 
freely elected federal parliamentary government. An independent press, 
an effective judiciary, and a highly functional democratic political 
system combine to promote individual freedoms. We work closely with 
Australian civil society to promote an already robust civic debate on a 
range of social, academic, economic and security issues. Over the past 
few years, Australia has focused on the growing efforts by foreign 
entities to interfere in its domestic politics and influence its 
foreign policy. Since 2017, Australia's Government and parliament have 
debated and passed several ground-breaking laws that restrict foreign 
political donations, require foreign agents to register, and curb and 
penalize acts which are injurious and undermine confidence in public 
institutions and civic life.
    In any major, cosmopolitan society there are always groups that 
face tougher challenges economically or socially. Australia has taken 
great pains to acknowledge the value and historic role of its 
indigenous inhabitants, the aborigines, and help address some of the 
lingering social issues that face that community. Voters elected the 
first indigenous woman to the House of Representatives in 2016. If 
confirmed, I would seek opportunities to share America's own 
experiences in encouraging greater inclusivity.

    Question 3. What steps will you take--if confirmed--to support 
democracy in Australia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Australia is an advanced, free and open democracy. The 
United States and Australia consult frequently on the challenges that 
mature democracies face. We work closely on how best to support and 
nurture the young democracies in the Indo-Pacific. If confirmed, I 
intend to continue our close and productive dialogues on this and many 
other topics.

    Question 4. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. As an advanced and free-market-based economy, Australia is 
not generally eligible to receive U.S. Government assistance. Rather, 
we robustly partner with Australia to coordinate our assistance to 
developing nations, particularly in the region. We seek to further such 
collaborative engagements with more people-to-people, educational, 
civic and scholarly exchanges and programs.

    Question 5. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Australia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Australia is a mature democracy with a vibrant civil 
society. If confirmed, I look forward to meeting with civil society 
members to hear about their goals and objectives and to learn how we 
might work together in areas of common concern and share best 
practices.
    Just as certain groups are underrepresented in the U.S. political 
system, in Australia women, indigenous peoples and minority groups are 
generally underrepresented in political bodies relative to their 
proportion of the population. If confirmed, I would seek opportunities 
to share our own experiences in encouraging greater inclusivity, 
possibly through U.S. Government-sponsored programs.

    Question 6. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Australia is a constitutional democracy with a freely 
elected federal parliamentary government. If confirmed, I intend to 
develop cordial relationships with members of all political parties in 
order to better understand their positions on issues of importance to 
us and to them, and to explain U.S. positions and their merits. I view 
this advocacy role as a key element of my position as Ambassador. As 
the father of three daughters, the issue of inclusivity, of women, 
minorities, and youth, in all facets of public, economic, and political 
life is near and dear to me. I am particularly proud that each of my 
daughters have spent time in government service following college 
graduation.

    Question 7. Will you and your embassy team actively engage with 
Australia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in country Australia?

    Answer. Australia enjoys the benefits of an independent and lively 
press. We are aware that Australia's defamation laws are different from 
ours, and it is concerning that some journalists who have done 
groundbreaking work on China's interference in Australia's domestic 
politics and foreign policy are being tried for defamation. We are 
tracking those cases closely. If confirmed, I look forward to engaging 
with a wide array of traditional and social media outlets.

    Question 8. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Like many mature democracies with a tradition of openness, 
Australia is coming to terms with the fact that it is an active target 
of foreign influence campaigns, agents, and actors. In June 2018, the 
Australian parliament approved ground-breaking national security 
legislation that bans foreign interference in politics, stiffens the 
punishment for leaking classified information, and makes it a crime to 
damage Australia's economic relations with another country. In November 
2018, the Australian parliament also passed legislation that bans 
foreign governments and state-owned enterprises from donating to 
Australian political parties, individual candidates and political 
campaigns. We seek to support Australia as it develops these tools to 
tackle a serious problem.

    Question 9. Will you and your embassy teams actively engage with 
Australia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, if confirmed, I and my Embassy team will actively 
engage with the Government of Australia, employers, and civil society 
to promote internationally recognized worker rights, including freedom 
of association. Independent trade unions are one of the fundamental 
building blocks for any democratic society and are important partners 
for the State Department in many countries. Moreover, ensuring U.S. 
trade partners respect internationally recognized worker rights and 
adhere to high labor standards promotes a level playing field for U.S. 
workers and helps create stronger trading partners for the United 
States.

    Question 10. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Australia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Australia? What specifically will you commit to do to help 
LGBTI people in Australia?

    Answer. In Australia, discrimination based on sexual orientation 
and gender identity is prohibited by law in a wide range of areas, 
including in employment, housing, family law, taxes, child support, 
immigration, pensions, care of elderly persons, and social security. 
Same-sex marriage has been legal in Australia since December 2017. 
Nonetheless, instances of discrimination are sometime reported, usually 
due to lingering social prejudice.
    If confirmed, my team and I will work supportively with Australian 
Government agencies, non-governmental organizations and other members 
of civil society to bolster public acceptance of the LGBTI community.

    Question 11. Australia has been cited in several reports as 
``ground zero'' for Chinese influence campaign activities, including 
interference with parliamentary elections, strong-arming of publishers, 
influencing the media, leveraging aggressive investments and business 
activities, Chinese student association activities, and so on:

   What is your understanding of these activities and how Chinese 
        trade-craft differs from Russian trade-craft when it comes to 
        influence activities?

    Answer. Like many advanced and open democracies, Australia is an 
active target of influence and interference campaigns by foreign 
actors, agents, and states, including China, according to many credible 
reports. Should I be confirmed, I will undertake to work hard with my 
Australian colleagues to combat any and all efforts by foreign actors, 
agents, or states, including China and Russia, to interfere in 
Australia's or America's democratic processes, free markets, and 
academic institutions.

    Question 12. Are there lessons we can learn from Australia's 
experience?

    Answer. As kindred systems with a similar political, economic, and 
social systems, the United States and Australia have a lot to learn 
from each other and should continue to actively work together to 
understand the common threats that face us. We can make further 
progress on tackling this very serious issue by continuing to closely 
coordinate with one another and other like-minded governments, share 
best practices on deterrence and prosecution, and share relevant 
intelligence under our robust information-sharing practices.

    Question 13. Where are the opportunities for the U.S., Australia, 
and others, to work more closely to seek to counter these Chinese 
activities?

    Answer. Australia has recently taken steps to address inappropriate 
Chinese influence. In August 2018, the Australian parliament approved 
by a wide margin sweeping national security legislation that bans 
foreign interference in Australian public life, requires foreign agents 
to register with the state, and penalizes a host of activities that 
damage Australia's economic, political, or other systems of public 
trust. In December 2018, the parliament passed further legislation that 
bans foreign governments and state-owned enterprises from making 
contributions to Australian political parties, individual candidates, 
and political campaigns. The legislation also created an Office of the 
Counter Interference Coordinator (CIC). We welcome these actions and 
will seek to apply, wherever possible, Australia's experience, lessons 
and responses to the situation in the United States as we face many of 
the same problems with foreign interference.
    Collaboration is the key to containing and reversing this 
multifaceted problem. If confirmed, I will strongly advocate for 
sharing best practices in prosecuting foreign interference cases and 
deterring foreign actors, supporting the new CIC Coordinator, and 
learning from the experiences of Australia and our closest allies. We 
must also continue to collaborate to limit, ban, or reverse improper 
foreign interference in our critical infrastructure.

    Question 14. Do you agree? In the specific case of Chinese student 
activities, the ``export'' of university education is the single 
largest service export Australia has, and China has shown willingness 
to restrict their purchases of education--and tourism--when Australia 
threatens to retaliate for political interference. What can the U.S. 
offer that matches the resources and leverage China can bring? What 
should we be doing to respond?

    Answer. China is Australia's largest trading partner and one of its 
biggest sources of higher education revenue. However, by far and away, 
the United States is Australia's number one investor and economic 
partner of choice. Our bilateral economic relationship is robust, led 
in large part by our dynamic bilateral trade agreement from 2005. Our 
historical relationship is also very robust, buttressed by our shared 
values of democracy, free markets and human rights, grounds on which 
China cannot compete. This relationship has helped to insulate 
Australia from the brunt of Chinese efforts to leverage its growing 
economic clout in exchange for political influence. If confirmed, I 
will work to counter Chinese influence, increase our ties and 
strengthen our alliance through greater people-to-people ties, 
opportunities for U.S. private sector investment, and coordination on 
shared security challenges in a transparent and collaborative way.

    Question 15. With the U.S. withdrawal from TPP, and APEC's first 
failure in its 29-year history to agree on a summit communique, what is 
our message to Australia when it comes to cooperation in multilateral 
negotiations and institutions?

    Answer. Both the United States and Australia continue to actively 
lead multilateral attempts to promote a free, open, and secure Indo-
Pacific. Despite China's scuttling consensus on the Leaders' Statement 
at APEC 2018 for the first time in its history, the United States and 
Australia were successful in making progress on a host of areas that 
support our partner economies in the region and our shared goals in the 
Indo-Pacific. These are reflected in the Chair's Statement. We will 
continue to build off of these successes in future negotiations and we 
will urge China to put aside its obstructionist behavior and support 
these laudable goals.

    Question 16. Virtually all economic analysis, and particularly 
official and private assessments from Australia, conclude that the 
Trump-China trade confrontation--including the threatened next round of 
25 percent tariffs on $200 billion of Chinese exports--will materially 
harm Australia's economy. One estimate put the damage at half a 
trillion dollars over the next decade. What is the U.S. explanation to 
Australia for the price they are paying for our confrontation with 
China?

    Answer. Over many years, the United States and Australia have 
repeatedly attempted to work with China in a cooperative and 
constructive manner, both bilaterally and multilaterally, to address 
China's unfair policies that challenge or subvert the rules of the 
international trading system. China has failed to resolve our concerns. 
As you know, at the G-20, the United States and China agreed to engage 
in negotiations over the next 90 days on changes with respect to 
China's structural issues such as forced technology transfer; 
counterfeiting and other forms of intellectual property theft; cyber 
intrusions into American business networks to steal trade secrets for 
commercial purposes; an undervalued currency; state-directed investment 
aimed at the U.S. technology base; large-scale subsidies to China's 
state-owned enterprises; and high tariff and non-tariff barriers.

    Question 17. Are you concerned that the administration's approach 
to information security--including sharing highly classified material 
with Russia, the use of unsecure information technology, and Ivanka 
Trump's use of a personal email account--undercuts the faith and 
confidence that our Australian ``Five Eye'' partners have in us when it 
comes to intelligence cooperation?

    Answer. No, under this administration, Australia has been and will 
remain an important and trusted ``Five Eye partner. If confirmed, I 
will work to ensure that our intelligence cooperation remains a key 
part of our relationship.

    Question 18. Given that the important position as Ambassador that 
you have been nominated for has been open for almost two years, what 
are the immediate steps will you take, if confirmed, to convey to the 
Australian Government and the Australian people that this relationship 
is, in fact, one that we cherish and value, and that this alliance is 
one of our most important?

    Answer. The U.S.-Australia alliance is steadfast and enduring, and 
underpinned by a deep alignment of mutual interests and shared values. 
If confirmed, I will immediately begin to work with my Australian 
Government counterparts on the joint work plan that advances our shared 
strategic interests in the Indo-Pacific. This work plan reflects 
diplomatic, security, and economic dimensions agreed to during the 
annual U.S.-Australia Ministerial meeting in Palo Alto in July. 
Additionally, I will work with our entire U.S. Mission Australia team 
to engage the Australian public in the importance of the U.S.-
Australian alliance through media interviews, social media outreach, 
and public speeches and engagements.

    Question 19. Given the critical nature of freedom of navigation and 
the free flow of commerce for both the U.S. and Australia as maritime 
trading nations, are there areas for deeper alliance cooperation that 
you see to address security and stability in the Indo-Pacific maritime 
domain?

    Answer. I share your concern about China's activities in the South 
China Sea and the broader Indo-Pacific region. Australia supports U.S. 
Freedom of Navigation Operations in the South China Sea and, along with 
the United States and Japan, supports ASEAN and Chinese efforts to 
negotiate a meaningful Code of Conduct (COC) for the South China Sea 
that respects the rights and interests of all states and is fully 
consistent with international law. While appreciative of U.S. efforts 
to uphold the rule of law against excessive maritime claims in the 
area, the Government of Australia has not conducted freedom of 
navigation operations within 12 nautical miles of disputed features in 
the South China Sea, either independently or alongside American 
vessels. Australia does, however, conduct presence operations and sails 
and flies regularly through the South China Sea. If confirmed, I will 
work with our interagency colleagues to explore with Australia how we 
might further enhance our cooperative efforts in a number of areas, 
both in the South China Sea and the broader Indo-Pacific region.

    Question 20. How can the U.S. and Australia work together to 
promote democracy in Asia?

    Answer. Good governance is a core pillar of the U.S. vision for a 
free and open Indo-Pacific. The Vice President announced the Indo-
Pacific Transparency Initiative during his recent visit to the region 
in mid-November. As part of this initiative, the United States, with 
allies and partners such as Australia, will promote just, transparent 
and responsive governance through anti-corruption efforts while 
encouraging strong civil society and honest business practices. We will 
also continue to work with regional institutions, including ASEAN and 
APEC, to advance these shared goals and principles.
    We are committed to working with all Indo-Pacific nations to create 
the conditions needed to instill greater attention to the importance of 
democracy, transparency, and good governance throughout the region.

    Question 21. Given the Trump administration's apparent disdain for 
many of the key components of democracy here at home, how do you 
propose the United States position itself as a credible partner for 
Australia and a credible messenger for values in the region?

    Answer. Good governance is a core pillar of the American experience 
and the U.S. vision for a free and open Indo-Pacific. The United States 
is committed to working with Indo-Pacific nations, including Australia, 
to create the conditions needed to unlock greater private investment, 
combat corruption, and secure nations' autonomy from foreign influence. 
We will continue to promote transparency, openness, rule of law, and 
the protection of human rights and fundamental freedoms. We are already 
working together with Australia in a number of regional fora to convey 
this message and to develop programs that strengthen local institutions 
that support these values. If confirmed, I look forward to working with 
my Australian colleagues to ensure that good governance flourishes in 
the region.

    Question 22. Given its own history with immigration, what messages 
do you think that Australia and the Indo-Pacific region are taking away 
from the Trump administration's family separation policy? The 
President's desire to ``build a wall''? Our efforts to deny refugees 
entry and asylum seekers their rights under international law?

    Answer. The United States and Australia share a strong history of 
immigration and adherence to international law. If confirmed, I will 
work closely with the Australian Government and people of Australia to 
communicate the administration's policies clearly and accurately.

    Question 23. Australia is an important trading partner of the 
United States. However, constituents have brought to my attention a 
concerning case in our trade and investment relationship. I am told 
that the Government of New South Wales (NSW) expropriated a company's 
mining license and left investors, including those from the U.S., with 
no recourse to challenge the action or ability to seek compensation. 
These were rights the investors had when they made the investments, but 
were later nullified by an act of the NSW Parliament. I have twice 
raised this issue with USTR Ambassador Lighthizer when he was before 
the Finance committee. To his credit, USTR continues to broach the 
topic of the treatment of U.S. investors with the Australian 
Government. In October 2017, Ambassador Lighthizer sent a letter to his 
counterpart formally requesting consultations with Australia under 
Article 11.16 of the Australia-U.S. Free Trade Agreement. I ask you to 
review the facts of this matter and encourage the Department of Foreign 
Affairs and Trade to undertake discussions with the New South Wales 
Government, the affected company, and USTR with the goal of 
establishing an impartial and transparent process for considering the 
claims of U.S. investors:

   Will you will commit to review this case?

    Answer. The investment case involving the New South Wales 
Government is an important issue for the Australia-U.S. Free Trade 
Agreement. Over the last year, Charge d'Affairs Jim Carouso and the 
Economic team at Embassy Canberra have continued to press the investor 
dispute with Australian officials, including members of the North South 
Wales Government. If confirmed, I commit to review this case and raise 
the dispute, as appropriate, with Australian authorities.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Arthur B. Culvahouse Jr. by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. One of the first policy initiatives I undertook during my 
tenure as chair of O'Melveny & Myers LLP was the launch of our firm-
wide ``Pro Bono Initiative.'' By formalizing and prioritizing our pro 
bono program, we set about to honor the firm's historic commitment to 
serving communities in need, and to create a platform to raise the 
prominence of our firm's pro bono efforts. Under my leadership, we 
adopted formal policies and procedures that rewarded our lawyers for 
using their skills to provide access to justice for those in need. Our 
program grew into one of the most respected in the country.
    O'Melveny's pro bono work frequently targets matters of basic human 
rights and core democratic values. These efforts include combating 
human trafficking, protecting victims of abuse and neglect, preserving 
access to high quality education for low-income children, assisting 
military veterans, ensuring access to health care and food security for 
the most vulnerable, assisting with adoption and foster care 
proceedings, and fighting for civil rights. I am extremely proud of how 
successful our program, our lawyers, and our firm have been in 
promoting human rights and democratic values, and I look forward to 
continuing this work if confirmed as Ambassador.

    Question 2. What are the most pressing human rights issues in 
Australia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Australia? What do 
you hope to accomplish through these actions?

    Answer. Australia is a constitutional democracy with a freely 
elected federal parliamentary government. The most significant human 
rights issue involved allegations of abuses against asylum seekers in 
offshore detention centers, including Manus Island in Papua New Guinea 
and in Nauru. As noted in the 2017 Australia Human Rights Report, the 
Government of Australia took steps to prosecute officials accused of 
abuses, and ombudsmen, human rights bodies, and internal government 
mechanisms responded effectively to complaints.If confirmed, I will 
support the continued efforts of the United States to create brighter 
futures for some of the world's most vulnerable people, including many 
of those in the immigration detention centers on Manus Island and 
Nauru. I will have regular contact with Australian Government officials 
and other humanitarian organizations in Australia to monitor the 
conditions of those in the centers. I look forward to working with 
Australian officials to continue addressing these issues and share best 
practices between our two governments.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Australia in 
advancing human rights, civil society and democracy in general?

    Answer. Australia takes human rights seriously. Thanks to our close 
bilateral relationship and Australia's commitment to human rights, they 
are natural partners for addressing human rights issues not only in 
Australia, but in the Pacific and Southeast Asia region. If confirmed, 
I look forward to working with them to advance these issues.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Australia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. I will meet with human rights, civil society, and non-
governmental organizations in Australia. If confirmed, I will engage 
the Australian Government on best practices in incorporating human 
rights in Australia's own security assistance and security cooperation 
activities.

    Question 5. Will you and your embassy team actively engage with 
Australia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Australia?

    Answer. Australia has high regard for its international human 
rights obligations, including with respect to freedom of expression, 
and is not known to have targeted individuals unjustly.

    Question 6. Will you engage with Australia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will work with Australian authorities 
to engage on matters of human rights, including civil rights, and 
governance. I will also seek to exchange best practices on human rights 
and governance between our governments and to partner with Australia to 
promote human rights in the region and beyond.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any such concerns that I may have 
through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any such concerns that I may have 
through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Australia?

    Answer. My investment portfolio includes funds that may hold 
positions in companies in Australia. However, these funds are exempt 
from the conflict of interest rules due to their diversified investment 
strategies. I also hold financial interests in several large companies 
with global operations, but out of an abundance of caution I committed 
in my Ethics Agreement to divest from all such assets within 90 days of 
my confirmation. The State Department Office of the Legal Adviser has 
reviewed all of my financial interests. I am committed to ensuring that 
my official actions will not give rise to a conflict of interest, and 
will remain vigilant with regard to my ethical obligations as 
Ambassador.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I agree that diverse teams are more creative and 
productive. Indeed, promoting diversity has been a focus throughout 
much of my career, and will continue to be so if confirmed as 
Ambassador. While Chair of O'Melveny, I oversaw the implementation of a 
number of measures to help promote diversity at the firm. First, during 
my tenure the firm focused heavily on the recruiting, retention, and 
promotion of lawyers from diverse backgrounds. Under my leadership, the 
firm also launched a comprehensive mentoring, sponsorship, and 
professional development platform, with diversity and inclusion a key 
focus. Third, I launched O'Melveny's Diversity & Inclusion Department, 
overseen by a full-time Director of Diversity and supervised by key 
partners across the firm, including Warren Christopher (Secretary 
Christopher was one of my predecessors as Chair of the Firm and 
graciously served as our first Partner in charge of our Diversity 
initiatives). Fourth, we established diversity-based ``Affinity 
Groups'' for our lawyers and staff. If confirmed, I will use the 
experience gained from our diversity initiatives at O'Melveny to mentor 
and support Embassy staff from diverse backgrounds.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I believe that diversity must be championed by management 
and supervisors while embracing a grassroots perspective. During my 
tenure as Chair of O'Melveny, improving diversity was a top strategic 
goal of the firm. Diversity was a highlight of the firm's Values 
Statement which was developed during my tenure and continues to guide 
the firm today. As Chair I also mandated that every partner, lawyer, 
and staff member, around the globe, attend diversity awareness 
interactive workshops. In addition, from 2009-2012, I served on the 
first Board of Directors for the Leadership Council on Legal Diversity, 
a group now comprising more than 300 corporate chief legal officers and 
law firm managing partners working to improve diversity in the legal 
profession. In this role I helped shape the best practices for 
fostering diverse and inclusive legal working environments. If 
confirmed, I will work with the leadership at the Embassy to reflect 
these best practices as appropriate to the Embassy environment.

    Question 12. How does political corruption impact democratic 
governance and the rule of law generally, and in Australia 
specifically?

    Answer. Political corruption can undermine good governance and the 
rule of law. Fortunately, the United States and Australia are both open 
democracies with foreign policies based on the principles of individual 
freedom, free markets, and the rule of law. Our alliance and overall 
relationship is an affirmation of the timeless nature of these shared 
foundational principles. These values are embodied both in our National 
Security Strategy and in the 2017 Australian Foreign Policy White 
Paper.
    Transparency in our civil society and educational institutions, 
economic governance institutions, and political processes is 
fundamental to the strength of our democracies. Laws that prevent 
corruption from negatively affecting governance and rule of law are 
strong in Australia. Just as any robust democracy, however, Australia 
does suffer from occasional and isolated cases of corrupt actors in 
their governing system. In those rare cases, the legal and political 
systems have been quick to react and remedy the situation.
    In June 2018, the Australian parliament approved ground-breaking 
national security legislation that bans foreign malign influence in 
politics, stiffens the punishment for leaking classified information, 
and makes it a crime to damage Australia's economic relations with 
another country. In November 2018, the Australian parliament also 
passed legislation that bans foreign governments and state-owned 
enterprises from donating to Australian political parties, individual 
candidates and political campaigners. This brings Australia's national 
tools for preventing foreign malign influence in Australian governance 
up to the highest standards.

    Question 13. What is your assessment of corruption trends in 
Australia and efforts to address and reduce them by the Government of 
Australia?

    Answer. Like the United States and other states around the world, 
Australia is debating how best to balance maintaining a free and open 
society with the need to safeguard against interference by corrupt 
individuals and foreign actors. The United States and Australia discuss 
these issues and regularly share information with our close partners. 
Domestic corruption remains low in Australia and the legal system has 
the appropriate tools to combat future cases.
    In June 2018, the Australian parliament approved groundbreaking 
national security legislation that bans foreign malign influence in 
politics, stiffens the punishment for leaking classified information, 
and makes it a crime to damage Australia's economic relations with 
another country. In November 2018, the Australian parliament also 
passed legislation that bans foreign governments and state-owned 
enterprises from donating to Australian political parties, individual 
candidates and political campaigners. This brings Australia's national 
tools for preventing foreign malign influence in Australian governance 
up to the highest standards.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Australia?

    Answer. The United States promotes responsive governments, 
empowered citizens, and strong regional institutions across the Indo-
Pacific. Part of our Indo-Pacific strategy relies on close cooperation 
with our Allies, like Australia.
    If confirmed, I will work with the Government of Australia and 
civil society to increase Australia's already large commitment to good 
governance, transparency, and adherence to international rules and 
standards in collaboration with the United States across the region.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Arthur B. Culvahouse Jr. by Senator Edward J. Markey

    Question 1. Earlier, you discussed the importance of better 
messaging the importance of the U.S.-Australia partnership, especially 
to a new generation of Australian. Can you share some of your ideas for 
how best to do this?

    Answer. If confirmed, I will lead efforts by our Mission, including 
through personal appearances and media interviews, to highlight how the 
United States and Australia are working together today to advance our 
shared vision for the Indo-Pacific--a region composed of nations that 
are independent, strong and prosperous. Additionally, I will work with 
colleagues in Washington and in Mission Australia to use the full range 
of public diplomacy tools, including educational and cultural 
exchanges, information programs, social media outreach, promotion of 
studying abroad in the United States and increased engagement with 
youth. Two themes that would seem to bear emphasis are the United 
States' long-standing position as Australia's largest economic partner 
and U.S. leadership in developing innovative technology. The aim is to 
deepen mutual understanding and to forge new relationships between the 
people of the United States and Australia in order to address the 
bilateral, regional, and global challenges we jointly face.

    Question 2. Australia's new coalition government is under pressure 
from its members to advance Australia's commitments on climate change, 
as well as ways it could relax its refugee admissions policies to allow 
families to leave detention facilities on the island of Nauru. If 
confirmed, how would you address policy changes in Australia that may 
expand commitments to climate change and refugee admissions?

    Answer. Our strong bilateral cooperation spans several changes in 
administration in both countries, and if confirmed, I will work to 
ensure that this cooperation continues with the current Australia 
coalition government. That includes continuing close coordination on 
Australia's refugee admissions policies, sharing information about best 
practices in refugee processing and resettlement, and continuing to 
fulfill U.S. commitments associated with the admission to the United 
States of refugees in Nauru via the U.S. Refugee Admissions Program. 
Approximately 450 refugees have been resettled to date. I will also 
seek continued cooperation with Australia on climate change, especially 
through research and development of new renewable and clean energy 
technologies. The United States is a leader in clean energy and 
innovation, producing affordable, reliable energy and stable, high-
paying jobs while dropping carbon emissions to the lowest level in 25 
years.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Carol Z. Perez by Senator Robert Menendez

Hiring Efforts Post-Freeze
        Now that the Department has rescinded the unjustified and 
        unproductive hiring freeze, I am pleased to hear there are 
        efforts to increase staffing and restore some of the damage 
        that was done. However, the hiring of civil service employees 
        in particular has been slow. In September of this year, there 
        were 300 fewer civil service employees than at the start of the 
        year--and that does not reflect the full reductions due to the 
        hiring freeze:

    Question 1. Do you commit to hiring the most qualified candidates 
and seeking to restore civil service jobs to where they were before the 
freeze?

    Answer. The flexibility to hire the most qualified people with the 
rights skills is essential to promoting the Department's mission and 
U.S. foreign policy goals. All Civil Service hiring options are now 
available to bureaus, including laterally reassigning and promoting 
Civil Service employees from within the Department; competitively 
hiring from the outside, to include using special hiring authorities 
(e.g. Schedule A (disability), VEOA (Veterans Employment), and Direct 
Hire Authority); utilizing special programs and fellowships (e.g., 
Presidential Management Fellows); and converting Pathways interns to 
meet mission priorities. Additionally, bureaus are authorized to hire 
in advance of projected attrition for the fiscal year. If confirmed, I 
will continue to consult and work with Congress to ensure that all 
critical priorities are met within appropriated funding levels for FY 
2019. As I understand it, these levels if funded, will bring us to or 
very near pre-freeze levels for both Civil Service and Foreign Service 
positions.

    Question 2. When do you anticipate that all civil service vacancies 
will be restored to pre-hiring freeze levels?

    Answer. I understand that the Department has been focused on 
expediting hiring since the Secretary officially lifted the hiring 
freeze on Foreign Service and Civil Service employment on May 15 this 
year. Civil Service employees, unlike the Foreign Service, are hired 
one vacancy announcement at a time following OPM prescribed procedures. 
The security clearance process adds an additional time lag. In 
November, the Department established a task force to increase the pace 
of Civil Service hiring and it is beginning to show some gains. If 
confirmed, I will work closely with the Secretary and other Department 
leaders to expedite hiring and return the Department to authorized 
employment levels as funded in the Department's appropriation.
Loss of Experience in Foreign Service
        One of the most severe impacts of the hiring freeze was the 
        depletion of senior Foreign Service Officers, who were denied 
        opportunities and promotions commensurate with their 
        experience.

    Question 3. How do you plan to restore the loss of senior 
leadership, particularly in the Foreign Service?

    Answer. One of the Director General's most important 
responsibilities is the strategic selection and development of 
personnel. If confirmed, I will routinely analyze promotion 
opportunities and career development assignments to not only build a 
strong Senior Foreign Service but to develop the bench strength we need 
for the future. I will ensure that we are meeting the Secretary's goals 
of recognizing our talented workforce and having the right people in 
the right places, doing the right job to succeed in our foreign policy 
mission.
Special Education for Children of Foreign Service Officers
        I continue to remain perplexed and concerned about reports that 
        Foreign Service Officers who have children with special needs 
        are facing a variety of obstacles in obtaining the funds and 
        services they need--reports that medical clearances have been 
        revoked, families have been asked to repay benefits, and 
        reduced funds were available for special education services. I 
        have yet to receive a satisfactory response from the Department 
        to my inquiries on this issue. I will be following up again 
        with the expectation that the Department will be fully 
        transparent and forthcoming about how it is ensuring that these 
        families and children are treated equally, and that the 
        Department is making it easier, not harder, for those willing 
        to serve our country abroad:

    Question 4. Do you commit to ensuring these families and children 
are treated fairly by the Department and will have the resources they 
need, and to review current policies to ensure that State is fully 
complying with the Americans with Disabilities Act?

    Answer. As a Chief of Mission currently and, if confirmed, as 
Director General, nothing is more important to me than the welfare of 
our personnel and the wellbeing of our family members. If confirmed, I 
will ensure that the families of Foreign Service personnel who have 
children with special needs are treated fairly by the Department. I 
further commit to ensuring that State is fully complying with all 
applicable laws. In fact, the Department is already taking action in 
response to employees' concerns. A task force was convened to review 
current policies and practices and to address the concerns raised.
    Building on the findings of the task force, which examined issues 
related to administering the Special Needs Education Allowance, I 
understand the Department is now implementing an action plan to support 
employees with special needs children. Priority actions include filling 
vacancies in the Bureau of Medical Services Child and Family Program 
and effectively communicating the criteria for receiving a Special 
Needs Educational Allowance.
Vacant Senior Positions
        Nearly two years into this administration, the Department 
        remains crippled by prolonged vacancies of key leadership 
        positions. A proposal by OMB to cut the Foreign Affairs Budget 
        by 32 percent led the Secretary of State to pursue a sustained 
        hiring freeze--both for new officers and eligible family 
        members--that assumed passage by Congress of these steep cuts 
        and to cut promotions into and within the Senior Foreign 
        Service by more than 50 percent. In particular, the lack of 
        permanent--or even acting--principal deputy assistant 
        secretaries (PDAS) in several critical bureaus seriously 
        undermines the Department's ability to fulfill its mission and 
        jeopardizes our national security and prosperity. As the debate 
        on our relationship with Saudi Arabia continues, for example, 
        we have no permanent PDAS for the Bureau of Near Eastern 
        Affairs. Two years into this administration, we only recently 
        received a nomination for Ambassador to Saudi Arabia. These 
        vacancies have hamstrung the United States' ability to engage 
        diplomatically on critical national security and humanitarian 
        issues in the region. And that is just one example.

    Question 5. I would like to hear how and under what timeline you 
will work to fill--with qualified candidates--crucial posts, including 
the PDAS positions in critical bureaus such as Near Eastern Affairs, 
Political-Military Affairs, Arms Control, Verification, & Compliance, 
Conflict and Stabilization Operations, and Democracy, Human Rights, & 
Labor.

    Answer. Ensuring that leadership positions are filled with the most 
qualified candidates is an important role for the Director General. As 
vacancies in bureaus in the Department's senior positions have 
occurred, Senior Career officials--from both the Senior Foreign Service 
and Senior Executive Service--have stepped in as Acting Principal 
Deputy Assistant Secretaries and Deputy Assistant Secretaries to 
provide the experience and essential leadership needed to ensure U.S. 
interests are protected.
    If confirmed, I commit to working closely with the Secretary to 
identify and expeditiously assign the most qualified Career candidates 
to fill important positions both at home and abroad.
Vacant Senior Positions
        Nearly two years into this administration, the Department 
        remains crippled by prolonged vacancies of key leadership 
        positions. A proposal by OMB to cut the Foreign Affairs Budget 
        by 32 percent led the Secretary of State to pursue a sustained 
        hiring freeze--both for new officers and eligible family 
        members--that assumed passage by Congress of these steep cuts 
        and to cut promotions into and within the Senior Foreign 
        Service by more than 50 percent. In particular, the lack of 
        permanent--or even acting--principal deputy assistant 
        secretaries (PDAS) in several critical bureaus seriously 
        undermines the Department's ability to fulfill its mission and 
        jeopardizes our national security and prosperity. As the debate 
        on our relationship with Saudi Arabia continues, for example, 
        we have no permanent PDAS for the Bureau of Near Eastern 
        Affairs. Two years into this administration, we only recently 
        received a nomination for Ambassador to Saudi Arabia. These 
        vacancies have hamstrung the United States' ability to engage 
        diplomatically on critical national security and humanitarian 
        issues in the region. And that is just one example.

    Question 6. Is it the Department's intention to decrease the size 
of the Senior Foreign Service permanently?

    Answer. Not at all. The FY 17 promotions levels were lower than 
previous years in anticipation of workforce reductions. Soon after 
coming on board in May, Secretary Pompeo lifted the hiring freeze and 
effectively ended the workforce reduction plan. The FY 2018 promotions 
returned to more traditional levels and have already been released to 
the field. If confirmed, I will work with the Secretary to authorize 
the appropriate number of promotions needed to supply a steady flow of 
Foreign Service into the senior ranks so that we have the right people 
with the right levels of experience, in the right places, doing the 
right job to succeed in our foreign policy mission.
Cuba Attacks
        As you know, more than 2 years has passed since the first 
        reported attack on our diplomats in Cuba. We still do not know 
        what or who is behind these attacks. And while the Department 
        is taking action to address the health needs of those affected, 
        many questions remain. In particular, I remain concerned that 
        we do not know the extent of the threat to diplomats serving 
        elsewhere in the world. I continue to have many questions and 
        look forward to hearing more from the State Department on how 
        to ensure the safety of security personnel abroad.

    Question 7. Have you read the September 2018 GAO report 
recommending better communication and reporting of security and health 
incidents?

    Answer. I have read the September 2018 GAO report. HR has also 
briefed me on its participation in the Deputy Secretary's Health 
Incidents Response Task Force and its ongoing communication and 
coordination with other federal agencies. I take GAO recommendations 
very seriously and I am committed to ensuring prompt, clear 
communication and reporting through formal channels regarding potential 
security and health incidents.

    Question 8. Do you commit to ensuring that HR promptly addresses 
and responds to any concerns related to similar attacks, and that all 
personnel affected receive the full medical treatment that they 
require?

    Answer. The Department of State's number one priority is the health 
and welfare of its employees, as well as the employees and family 
members from State and other agencies who serve overseas under Chief of 
Mission authority. If confirmed, I am committed to ensuring that our 
affected employees and family members receive all the care and benefits 
to which they are entitled. By statute, the Federal Employees' 
Compensation Act (FECA), i.e. workers' compensation, is the exclusive 
remedy for federal employees with work-related injuries or illnesses.
    I understand that HR has encouraged our employees to apply for 
workers' compensation and the Department appointed Ambassador Robert T. 
Yamate (ret.) in September to serve as Senior Advisor and Care 
Coordinator for employees and family members affected by the health 
incidents in Cuba and China. Ambassador Yamate communicates directly 
with the employees one-to-one and in group settings, and advocates for 
them on a daily basis. We are also working on a legislative fix to 
include family members in our coverage.

    Question 9. Do you commit to cooperating fully with any 
investigations by the Inspector General and Office of Special Counsel?

    Answer. I take management's responsibility to cooperate fully with 
investigations by the OIG and the U.S. Office of the Special Counsel 
(OSC) very seriously. If confirmed, I commit to cooperate fully with 
any investigations and implement IG recommendations within the scope of 
my authority.
Sexual Harassment
        Sexual harassment continues to be an issue that all workplaces, 
        including federal agencies, can improve upon. Women who work in 
        the national security sector face unique and complex challenges 
        that often leave them especially vulnerable to sexual 
        harassment, especially as there continue to be too few women in 
        the senior ranks.

    Question 10. Do you commit to ensuring that HR promptly addresses 
and responds to any complaint of sexual harassment, and to continually 
review and update training to ensure that it is adequately addressing 
the vulnerabilities women face?

    Answer. Yes, I am strongly committed to ensuring the Department 
provides a workplace that is inclusive and free from sexual and 
discriminatory harassment. There is no room for harassment in today's 
work place. Earlier this year, the Department directed mandatory 
harassment awareness training for all agency employees, including local 
staff and contractors. Thanks to the efforts of the Office of Civil 
Rights, we accomplished that mission by June. Additionally, the 
Secretary sent out a cable to all employees in October about the 
importance of a culture of civility and respect. It outlined employee 
protections from harassment and toxic behavior at work. Both the 
training and supporting cable reinforce our effort to make sure 
employees understand the commitment of Department leadership to 
ensuring a workplace free from harassment and the support available if 
they are harassed.
    The Department's policies addressing sexual harassment and 
retaliation are strong and are covered in the Department's Foreign 
Affairs Manual (FAM). The policies make it mandatory for all 
supervisors and other responsible management officials to immediately 
report incidents of possible harassment that they observe, are informed 
of, or reasonably suspect to the Department's Office of Civil Rights 
for investigation and further action by HR, when warranted. If 
confirmed, this will continue.
    Yes, I commit to ensuring that these policies are clearly 
communicated, conveyed in mandatory employee training courses, and 
posted online. All new employees receive at least one hour of EEO and 
Harassment Awareness Training during the Foreign Service Officer, 
Foreign Service Specialist and Civil Service orientation classes. This 
education continues through the life cycle of all employees as they 
progress in their careers. Additionally, the Foreign Service Institute 
has created a new on-line harassment awareness-training module that is 
part of the Department's mandatory training courses. It will be 
available to employees shortly.

    Question 11. Are you familiar with the National Security #MeToo 
letter from last November? What else do you think the Department can do 
to protect women and ensure that they are not dissuaded from seeking 
out senior positions in government because of harassment or 
intimidation?

    Answer. Yes, I am aware of the #MeToo letter. If confirmed, I will 
ensure that the State Department's strong policies continue to be 
enforced and that employees continue to receive effective training on 
these topics. Additionally, I will ensure that senior leadership convey 
the important message that all inappropriate behavior is unacceptable, 
and that any individuals who engage in improper conduct and/or violate 
these policies are held accountable. I will ensure that policies, 
messaging, and training are continuously reviewed and refreshed as 
necessary. It is unacceptable for any employee to intimidate or harass 
others, or in any way dissuade anyone from seeking out senior positions 
to advance their careers.
DEA Incident in Honduras
        In 2012, there were 3 deadly force incidents in Honduras 
        related to DEA operations. At the time, you were the Principal 
        Deputy Assistant Secretary for INL. An Inspector General report 
        from last year stated that you raised objections to Diplomatic 
        Security (DS) conducting an investigation of the incidents and 
        that INL refused to assist DS in its investigations.

    Question 12. What is your response to the IG report?

    Answer. As one of three Deputy Assistant Secretaries during the 
time of the Ahuas incident, my intent during my conversation with DS-
Washington was to ensure that the U.S. Chief of Mission to Honduras had 
full control and oversight for this incident. At no point was I 
suggesting that DS should not engage, nor was I attempting to undermine 
the Chief of Mission; in fact, my efforts were to ensure that she could 
exercise her authorities fully by asking that all parties, including 
DS, work through her to resolve the investigation. In retrospect, I 
could have communicated this differently so that there would be no 
ambiguity or room for misinterpretation regarding my intent.

    Question 13. As Director General, would you take the same action 
today?

    Answer. As a current Chief of Mission, I have the requirement to 
coordinate and manage all activities for all agencies under my 
authority and understand completely the extent of my responsibility for 
actions that occur in my country. As Director General, I will fully 
support the Chief of Mission, including when they ask for assistance 
from DS domestic offices with regard to in-country investigations.

    Question 14. What assurances can you give this committee that you 
will fully support DS staff in any jurisdictional dispute overseas?

    Answer. I will fully support the role of Diplomatic Security in 
jurisdictional disputes overseas according to U.S. statute and 
regulations.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Carol Z. Perez by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have been an active and committed defender of human 
rights and democracy during my 31-year career in the Foreign Service. 
During my tenure as Consul General in Milan, as waves of North African 
immigrants arrived in Italy, we started a series of roundtable 
discussions with local authorities, policy makers and religious leaders 
that highlighted the positive benefits of immigration and exchanged 
best practices on integration. We funded a grant that expanded a Muslim 
online magazine throughout Europe, supporting efforts to counter 
violent extremism, improving communication and collaboration among a 
target audience of second generation Muslims. As Ambassador to Chile, I 
have made human rights a focus for the Embassy. I led Embassy campaigns 
that promoted women's empowerment and combated gender-based violence, 
expanded the Embassy's outreach to and programs in support of 
marginalized populations, such as LGBTI community members, indigenous 
populations, and economically disadvantaged communities, and met with 
religious minority groups, including Chile's Jewish and Arab 
populations, to discuss religious freedom and promote tolerance. My 
focus on increasing opportunities for indigenous populations resulted 
in the first English language program for young indigenous 
entrepreneurs that will open new horizons for trade and commerce. 
Finally, as the political and humanitarian crisis has deepened in 
Venezuela, I have encouraged Chilean officials to work with regional 
counterparts to provide a safe-haven for those Venezuelans in most dire 
need, to meet with Venezuelan dissidents and human rights activists, 
and to hold the Venezuelan government accountable for violating the 
rights of its own citizens.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. Mentoring and staff development are important to me. If 
confirmed, I will work to strengthen the Department's diversity and 
inclusion efforts at every level. Effective mentoring and support can 
help the Department retain a diverse workforce and sustain that 
diversity as employees progress through their careers. Throughout my 
career, I have benefited from the guidance and counsel of mentors. 
Because I know first-hand just how important that kind of support can 
be, I have mentored entry-level and mid-level officers whenever I have 
had the opportunity. As Principal Deputy Assistant Secretary, I led HR 
Bureau efforts to strengthen our mentoring programs by incorporating 
best practices from the private sector and other government agencies.
    We now have a number of programs in professional development, 
career advancement, and unconscious bias training. These programs are 
important to retaining and developing a diverse and prepared workforce 
so they can be successful, and we can be successful as a country. If 
confirmed, I will review these programs regularly to ensure they are as 
effective as they can be.

    Question 3. What steps will you take to ensure each of the 
supervisors in the Bureau of Human Resources are fostering an 
environment that is diverse and inclusive?

    Answer. If we are going to continue to have the best diplomatic 
service in the world, we must continue to weave diversity, inclusion, 
and respect into the whole lifecycle of employees' careers, from the 
moment they join the Department to the end of their service.
    I believe that setting an example at the top and communicating 
expectations can be effective in supporting leadership efforts to 
foster diversity and inclusion at the bureau level. If confirmed, I 
will work with bureau leaders as they examine processes or practices 
that might hamper their efforts to cultivate a diverse and inclusive 
work environment.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes widely traded funds that 
may have investments in foreign companies; however, these funds are 
exempt from the conflict of interest rules. I also have financial 
interests in several large companies with global business, but those 
holdings either are below the $15,000 de minimis threshold in the 
conflict of interest laws or were not identified as posing a conflict 
of interest. The State Department Ethics Office and the U.S. Office of 
Government Ethics reviewed all of my financial interests. I am 
committed to ensuring that my official actions will not give rise to a 
conflict of interest. I will divest my interests in any investments the 
state Department Ethics Office deems necessary in the future to avoid a 
conflict of interest, and will remain vigilant with regard to my ethics 
obligations.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Carol Z. Perez by Senator Jeanne Shaheen

    Question 1. Consistent, predictable staffing is essential to the 
maintenance of core diplomatic capabilities, effect career development, 
and an orderly flow of talent in the Foreign Service. If confirmed, how 
would you ensure that the Foreign Service has at the present and will 
have in the future appropriately experienced personnel at all grades?

    Answer. The Department has a robust strategic workforce planning 
process with the goal of aligning resources, people, and policy 
priorities. There are three main components, which ensure a predictable 
flow through the Foreign Service ranks and ensure the right officers 
with the right level of experience are assigned to the right 
positions--intake/hiring, assignments/career development, and the 
promotions process. Recent hiring, with the exception of FY 2017, has 
been fairly consistent. In FY 2018 Foreign Service intake/hiring 
returned the Department to pre-2017 hiring levels as stipulated in the 
Department's FY 2018 appropriation Statement of Managers. Preliminary 
Foreign Service intake planning for FY 2019 assumes continued robust 
hiring within our final authorized funding levels.
    If confirmed, I will work with the Secretary and advocate for a 
budget that fully funds the Department's staffing, training and career 
development requirements.

    Question 2. How do you assess the current and planned training, 
professional development and professional education opportunities in 
the State Department? What is your view of making the George P. Schultz 
National Foreign Affairs Training Center an accredited academic 
institution, on a level equivalent to the U.S. military's war colleges, 
capable of granting a Master of Arts degree in diplomatic studies?

    Answer. The State Department's Foreign Service Institute, located 
primarily at the George P. Shultz National Foreign Affairs Training 
Center, provides outstanding training and professional education for 
the State Department and other foreign affairs agencies personnel. That 
said, Secretary Pompeo has asked me, if confirmed, to work closely with 
the new Director of FSI, Ambassador Daniel Smith, to review our overall 
talent management, including the professional development and education 
opportunities we provide to our personnel over the course of their 
careers. One possibility FSI leadership will be considering is whether 
to enable FSI to grant a Master of Arts degree in diplomatic studies, 
either by itself or in partnership with another academic institution. 
Expanding current professional development opportunities through long-
term training and detail assignments is another option. These 
assignments help us to fulfill the strategic goals of the Department 
and meet personal and professional development goals for our Civil 
Service and Foreign Service employees.

    Question 3. Foreign language capability is one of the principal 
skills unique to Foreign Service officers in the federal government. If 
confirmed, how would you work to promote high-level language 
proficiency and to ensure that Foreign Service officers are able to 
maintain and improve the foreign language skills with which they enter 
into service or acquire through training?

    Answer. I share your view that foreign language skills are critical 
to the Foreign Service. The State Department currently operates a 
Recruitment Language Program to attract individuals with specific 
language skills and a Language Incentive Pay program to encourage 
personnel to retain acquired language skills. The Foreign Service 
Institute established a ``Beyond 3'' program several years ago to 
enable officers to elevate their language skills. If confirmed, I look 
forward to working with FSI to evaluate the effectiveness of these 
programs and to identify additional or new ways to ensure that Foreign 
Service officers are able to acquire, maintain, and improve the 
language skills needed to effectively accomplish our mission.

    Question 4. Even though the United States recognizes same sex 
marriage and the State Department works to treat all employees equally, 
LGBTI diplomats and their families often experience bureaucratic 
obstacles to serving worldwide--with the same privileges and 
immunities--as heterosexual colleagues. As the head of the State 
Department's Bureau of Human Resources, if confirmed, how would you 
ensure Department leadership advocated with foreign governments so that 
LGBTI employees and their families could serve in all assignments 
worldwide without undue impediment?

    Answer. If confirmed, I will continue the Department's strong 
support for our LGBTI employees and their families. Specifically in the 
area of assignments, I will ensure that our embassies strongly advocate 
for our LGBTI employees and their families assigned overseas to have 
their accreditation accepted by the host country and be afforded 
appropriate levels of privileges and immunities equal to their 
heterosexual counterparts. The Department has made good progress in 
recent years in achieving acceptance of accreditation in more than half 
of the countries where we have representation (97 of 170). We will 
continue to engage other governments to ``Move them to YES.''



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Carol Z. Perez by Senator Cory A. Booker

Diversity at State
        As Director General of the Foreign Service, if confirmed, you 
        will have an awesome responsibility overseeing the men and 
        women who make up our incredible civil and foreign services and 
        ensuring we cultivate the most talented and hardworking 
        individuals to serve. But we also want a corps that represents 
        the richness of America.
          The Charles B. Rangel International Affairs and Thomas R. 
        Pickering Foreign Affairs programs help us do just that.

    Question 1. If confirmed, would you support expanding the Rangel 
and Pickering fellowship programs?

    Answer. As I noted in my testimony, thanks to our long-standing 
diversity efforts and bipartisan Congressional support through the 
Pickering and Rangel programs and other initiatives, we have made 
important progress. I understand that, beginning in FY 2017, Congress 
requested that the Department expand the Pickering and Rangel Programs 
by ten fellows each.
    Without additional funding, adding twenty Fellows would result in a 
significant decrease in tuition assistance that would endanger the 
program. If confirmed, I will carry out a comprehensive assessment to 
evaluate opportunities for expansion and determine the best options for 
the Department to continue to recruit diverse and talented candidates.

    Question 2. What policies do you think are needed to increase the 
share of women in the Foreign Service and better ensure that more women 
are promoted to the Senior Foreign Service?

    Answer. If we are going to remain the world's premier diplomatic 
service, the Department must continue to weave diversity into the whole 
lifecycle of our talent management system, from recruitment to training 
and promotions.
    Our recruitment efforts place a strong emphasis on diversity and 
talent. The Pickering and Rangel Fellowship programs in particular have 
a high proportion of women and have contributed significantly to 
bringing female candidates into the Foreign Service.
    If confirmed, I look forward to building upon the significant 
progress the Department has made over the last several years to ensure 
that our workforce reflects the diversity and talent of America.
Mid-career Diversity Programs
        As of the end of September, both the Senior Executive Foreign 
        Service (SES) and Senior Foreign Service (SFS) are 
        overwhelmingly white (over 88 percent) and male (over 60 
        percent). In order to create a more diverse and representative 
        SES and SFS, the State Department needs to ensure it is 
        investing in and retaining junior and mid-career professionals. 
        The Department is a sponsor of programs including the 
        International Career Advancement Program (ICAP), which seeks to 
        increase the quality and diversity of senior international 
        affairs policymakers by assisting highly promising mid-career 
        professionals from underrepresented groups.

    Question 3. Will you commit to continuing to support mid-career 
training and advancement programs, including ICAP, for underrepresented 
groups?

    Answer. Yes, if confirmed, I will continue to support critical mid-
career training and advancement programs. The Department supports its 
retention goals by funding diverse mid-level employees' participation 
in the International Career Advancement Program (ICAP). We view this 
program as a cornerstone to fostering growth and development in our 
Civil Service and Foreign Service employees. Since 2016, the Department 
has sent ten participants every year to participate in ICAP. If 
confirmed, I will work to ensure this targeted leadership program 
remains a mainstay of our retention efforts.

    Question 4. What other steps do you think are needed to support a 
more diverse and representative SES and SFS?

    Answer. I am committed to ensuring the gains in diversity at the 
entry and mid-levels are reflected at the senior levels. If confirmed, 
I will work to foster greater diversity at the senior levels of the 
State Department by assessing whether barriers to advancement exist, 
and by building on current efforts to utilize the talents of all 
employees, including continued support for mid-career development 
programs such as ICAP and the SES Candidate Development Program for 
more senior employees.
Supporting LGBTI Employees
        On January 9, 2017, Secretary Kerry took the unprecedented step 
        of apologizing to gay, lesbian and other State Department 
        employees who were fired or otherwise discriminated against in 
        the past because of their sexual orientation during the so-
        called ``Lavender Scare'' and at other periods in the 
        Department's history.

    Question 5. Does the State Department continue to support and 
reaffirm Secretary Kerry's statement?

    Answer. Yes. The Department has a strong record supporting our 
LGBTI employees, which Secretary Pompeo has continued. In noting LGBTI 
Pride Month in June, Secretary Pompeo said: ``The United States joins 
people around the world in celebrating Lesbian, Gay, Bisexual, 
Transgender, and Intersex (LGBTI) Pride Month, and reaffirms its 
commitment to protecting and defending the human rights of all, 
including LGBTI persons.'' If confirmed, as Director General I will 
fully support LGBTI employees and their families as valued members of 
the State Department community.
Visas for Same-Sex Partners
        While U.S. laws and Supreme Court decisions in recent years 
        have paved the way for same-sex couples to legally marry, same-
        sex marriage is still not legal in the vast majority of 
        countries around the world. This can be a challenge for LGBTI 
        Foreign Service officers with same-sex spouses, as they may be 
        entering a country that does not recognize their marriage and 
        thus the government may refuse to issue a visa for their 
        spouse. However, given the importance of reciprocity in 
        diplomatic relations we would expect countries to fully accept 
        the legal marriages of all U.S. Foreign Service officers and 
        their spouses, regardless of sex.

    Question 6. What is the list of the names of countries that 
routinely deny visas to same-sex partners of U.S. Foreign Service 
officers or personnel posted overseas?

    Answer. The list of countries that routinely deny diplomatic visas 
to same-sex spouses of our officers and personnel includes the 
following 72 countries:

   Africa: Angola, Botswana, Burkina Faso, Cameroon, Cote d'Ivoire, 
        Democratic Republic of the Congo, Djibouti, Eritrea, Ethiopia, 
        Gabon, Ghana, Guinea, Kenya, Madagascar, Malawai, Mauritania, 
        Namibia, Niger, Nigeria, Senegal, Sudan, Tanzania, The Gambia, 
        Uganda, Zambia, Zimbabwe

   East Asia and the Pacific: Brunei, China, Fiji, Hong Kong, 
        Indonesia, Korea, Malaysia, Marshall Islands, Micronesia, 
        Palau, Papua New Guinea, Philippines, Singapore, Thailand

   Europe: Azerbaijan, Belaurus, Georgia, Poland, Russia

   Near East: Algeria, Bahrain, Egypt, Jordan, Kuwait, Lebanon, 
        Morocco, Oman, Qatar, Saudi Arabia, Tunisia, United Arab 
        Emirates

   South and Central Asia: Afghanistan, India, Kyrgyzstan, Pakistan, 
        Sri Lanka, Tajikistan, Turkmenistan, Uzbekistan

   Western Hemisphere: Barbados, Grenada, Guyana, Jamaica, Nicaragua, 
        Suriname, Trinidad & Tobago


    Question 7. What steps do you plan to take to ensure such countries 
do not have de facto vetoes over where U.S. Foreign Service officers or 
personnel posted overseas with same-sex spouses can be assigned due to 
their sexual orientation?

    Answer. Department policy is to seek appropriate visas and to 
request from receiving, i.e., host, states appropriate privileges and 
immunities for all our employees and their families serving overseas, 
including employees in same sex marriages. In cases where the receiving 
state will not accept accreditation and provide privileges and 
immunities for same-sex spouses equal to those of their opposite-sex 
counterparts, we try to find informal arrangements that nonetheless 
allow the spouse to accompany the employee.
    In most cases, this is possible. Regrettably there are times when 
it is not possible, such as when we conclude that assignment to a 
particular post might be inadvisable for an employee accompanied by a 
same-sex spouse because of personal safety or similar concerns. 
Although these informal arrangements can be sensitive, information on 
options is readily available to employees as they make decisions to bid 
on overseas assignments. Please note that some assignments are 
unaccompanied because conditions at post are too dangerous or difficult 
for families to accompany the employee regardless of sexual 
orientation.
Increasing Diverse Hiring
        In a speech on August 18, 2017, then-Secretary of State Rex 
        Tillerson laid out a number of new initiatives to increase the 
        hiring of a diverse talent pool for the State Department. He 
        said that he had ``directed the relevant committees to adopt a 
        new procedure. Every time we have an opening for an ambassador 
        position, at least one of the candidates must be a minority 
        candidate. ''

    Question 8. What is the status of this new procedure? Has it been 
implemented? If not, why not?

    Answer. The Department takes very seriously our goal to foster 
diversity in the senior ranks. Diversity is one of the factors in 
considering candidates for Chief of Mission positions, as well as for 
Deputy Chief of Mission and Principal Officer positions. If confirmed, 
I am committed to strengthening these efforts by examining potential 
structural barriers to promotion to the senior ranks.

    Question 9. Secretary Tillerson also stated that the Department is 
``going to build our recruiting team operations out in places that we 
haven't concentrated before. Now, that doesn't mean coming through town 
once a year and dropping some pamphlets off at the recruiting office. 
We're going to build and develop relationships with institutions around 
the country so that people can more easily find us, and more 
importantly, we can find them, not just to rely upon people seeking us 
out:''

   What is the status of this recruiting team expansion? Has it been 
        implemented? If not, why not?

    Answer. The Department is committed to working hard to find diverse 
candidates. The Department's current recruitment efforts span the 
United States and utilize targeted recruitment strategies to ensure the 
Department consistently meets its hiring needs, with a particular 
emphasis on diversity. Recruiters are based in Washington, D.C and at 
key institutions, including historically black colleges and 
universities (HBCUs) and Hispanic-serving institutions (HSIs), across 
the United States. If confirmed, I commit to reviewing the footprint 
and effectiveness of our recruiting program.

    Question 10. Secretary Tillerson also stated that the Department 
wanted ``to expand our footprint at minority-focused job fairs, and we 
can do more to recruit from one of the most diverse and proven talent 
pools:''

   What is the status of this job fair footprint expansion? Has it 
        been implemented? If not, why not?

    Answer. Our recruitment team includes Foreign Service Officers and 
Specialists assigned as regional ``Diplomats in Residence'' (DIRs) 
throughout the United States, as well as headquarters-based recruiters. 
The DIRs are hosted by, or recruit at Historically Black Colleges and 
Universities and Hispanic Serving Institutions (HSIs) with significant 
minority enrollment. All efforts focus on diversity recruitment.
    In addition to attending job fairs, their activities include 
building relationships with campus career counselors, study abroad 
offices, and regional university consortia, and recruiting through 
World Affairs Councils, professional associations, and state and local 
diversity coordinators, to reach populations underrepresented in the 
Department.
    As a chief of mission, I understand fully the value of a highly 
diverse team to advancing our nation's foreign policy objectives. If 
confirmed, diversity will continue to be one of my highest priorities 
and I commit to reviewing the footprint and effectiveness of our 
recruiting program.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Christopher Paul Henzel by Senator Robert Menendez

    Question 1. Does the UAE conduct assassinations? Can you confirm 
press accounts that the United Arab Emirates hired a U.S. firm to 
conduct assassinations, as described in press reports?

    Answer. I am not able to confirm these press accounts. If 
confirmed, I intend to look into these allegations.

    Question 2. For what services was Spear Operation Group, Abraham 
Golan, and associated U.S. citizens, hired to perform by the UAE?

    Answer. I am not able to confirm these press accounts. If 
confirmed, I intend to look into these allegations.

    Question 3. Did the U.S. citizen who has been working as a military 
officer for the United Arab Emirates, reportedly in the Joint Aviation 
Command, receive an export license to perform such activity?

    Answer. I am unaware of any export license being issued to Spear 
Operations Group.

    Question 4. What other military or security services are being 
performed for the UAE by U.S. citizens, and do they have ITAR licenses 
to perform such services?

    Answer. In my current capacity as Deputy Chief of Mission in Saudi 
Arabia, I have not been following specific licensing or end-user issues 
in other countries. However, I understand that any U.S. person who 
provides defense services, as defined in 22 CFR 120.9 of the 
International Traffic in Arms Regulations, to UAE end-users requires 
authorization by the Department. Authorizations can come in the form of 
a license (for services limited in scope or duration) or through an 
agreement (for longer-term performance of defense services). A defense 
service means the furnishing of assistance related to a particular 
defense article or technical data being exported, and it can also mean 
military training for regular or irregular UAE forces, whether in the 
United States or abroad.
U.S. Training of Yemeni Forces
        Secretary Mattis stated last month that ``[t]he U.S. and the 
        Coalition are planning to collaborate on building up legitimate 
        Yemeni forces to defend the Yemeni people, secure their 
        country's borders, and contribute to counter Al Qaeda and ISIS 
        efforts in Yemen and the region.'' We understand that DoD is 
        considering support for military and security elements under 
        the control of the internationally recognized Republic of Yemen 
        Government (ROYG), possibly relying on their section 333 
        authority. If you are confirmed as Ambassador, you would 
        oversee such efforts.

    Question 5. Which ``Yemeni forces'' are being considered for this 
support?

    Answer. I understand that DoD, as part of the administration's goal 
of improving the capacity of the Republic of Yemen Government, would 
like to increase existing training of Yemen's Coast and Border guards. 
Assisting the Republic of Yemen Government to protect its own borders 
is central to our objectives of countering Iranian malign influence, 
preventing the flow of weapons to terrorist groups like Al-Qaeda in the 
Arabian Peninsula (AQAP) and the Islamic State in Yemen (ISIS), 
ensuring the security of strategic waterways, and eradicating the 
conflict economy that is an obstacle to peace in the country. I refer 
you to the Department of Defense for further specifics on this issue.

    Question 6. What forms, and from what funding sources, will this 
support take?

    Answer. I understand that the Department of Defense, as part of the 
administration's goal of improving the capability of the Republic of 
Yemen Government, would like to increase existing training of Yemen's 
Coast and Border guards. I refer you to the Department of Defense for 
specifics on this issue.

    Question 7. What sort of vetting of Yemeni individuals will be 
done, how, and by whom?

    Answer. I refer you to the Department of Defense for specifics on 
this issue.

    Question 8. When will this support commence; over what time period; 
and according to what metrics of evaluation?

    Answer. I refer you to the Department of Defense for specifics on 
this issue.
Yemeni Detainees
        On June 22, 2017, Human Rights Watch issued a report detailing 
        UAE support for Yemeni forces that have arbitrarily detained, 
        forcibly disappeared, tortured, and abused individuals in Yemen 
        during security operations:

    Question 9. Please confirm that you have read this report.

    Answer. I have read this report.

    Question 10. What are the Yemeni forces named in the report? Please 
describe the nature of the support these forces received from the UAE, 
according to the report.

    Answer. It is my understanding that the Yemeni forces named in the 
report, the Security Belt and Hadrami Elite Forces, were trained by the 
UAE. The Security Belt, a force created in spring 2016, is officially 
under the ROYG Interior Ministry but is funded, trained, and directed 
by the UAE. The Hadrami Elite Forces are formally a part of the Yemen 
Army, which covers parts of Hadramawt governorate. The UAE provides 
salaries, training, weapons, and direction to the Elite Forces, 
according to the Human Rights Watch report.

    Question 11. According to the report, detainees were held in UAE-
run detention facilities. Where were these facilities located, 
according to the report?

    Answer. According to the report, there are detention facilities and 
secret prisons in Aden and Hadramawt, including at least two run by the 
UAE and others run by UAE-backed Yemeni security forces. The report 
states that the UAE ran at least one detention facility in Aden for 
terrorism suspects they deemed to be high-value or sensitive cases. 
There are allegations that the Yemeni Security Administration, which 
falls under the Yemeni Interior Ministry but whose top official is UAE-
supported, also ran informal detention facilities and secret prisons in 
Aden. The report alleges that the UAE runs unofficial detention 
facilities in Mukalla, with the principal detention facility at al-
Riyan airport, Mukalla's main airport. It is my understanding that the 
UAE says it no longer runs detention facilities in Yemen. The United 
States Government does not have a presence or access to these 
facilities and is unable to verify the Human Rights Watch report.

    Question 12. Please describe the abuse inflicted on detainees at 
these facilities, according to the report.

    Answer. According to the report, former detainees and family 
members told Human Rights Watch that some detainees had been abused or 
tortured inside detention facilities, most often through beatings by 
officers using their fists, guns, or other metal objects. Others 
mentioned electric shocks, forced nudity, threats to the detainees or 
their family members, and caning on the feet. Other allegations include 
exposure to cold temperatures, insults, death threats, and sexual 
abuse, including threats of rape.
    The United States Government does not have a presence or access to 
these facilities and is unable to verify the Human Rights Watch report.

    Question 13. What recommendations does the report give for the 
Governments of Yemen and the UAE regarding the detention and treatment 
of detainees?

    Answer. The Human Rights Watch reports recommends all parties 
carrying out detentions in Yemen should:


   Immediately stop forcibly disappearing, arbitrarily detaining, or 
        torturing detainees. No exceptional circumstances may justify 
        torture, and states are required to investigate and prosecute 
        those responsible for torture.

   Release anyone arbitrarily detained or detained for involvement in 
        peaceful political activities, including especially vulnerable 
        people such as children.

   Immediately provide a list of all detention sites and of everyone 
        currently in detention or who has died in custody.

   All detainees should be promptly brought before an independent 
        authority, like a judge, provided specific reasons for their 
        detention, and given the ability to contest the detention. 
        Anyone not being prosecuted for a criminal offense may only be 
        held for exceptional reasons of security, set out clearly in 
        domestic law, and must be released as soon as the reasons for 
        the deprivation of their liberty cease to exist. All such 
        detainees should be brought promptly before a judge. Detention 
        under such circumstances should be reviewed at least every six 
        months.

   Every detainee must be treated humanely at all times.

   Visits from family members must be allowed if practicable.

   Under applicable human rights law, children should be detained only 
        as a measure of last resort and for the shortest appropriate 
        period of time. In all cases, children should be held 
        separately from adults, unless they are detained with their 
        family.

   Yemen is obliged to ensure that the Security Belt and Hadrami Elite 
        Forces, as well as any other forces operating with the Yemeni 
        Government's consent, comply with relevant legal requirements 
        and procedural safeguards, including taking active steps to 
        prevent disappearances, such as through regularizing the 
        procedure of registering detainees and notifying family members 
        of their whereabouts. The UAE has similar obligations, given 
        its role in detentions.

   Yemen is responsible for taking all reasonable steps to protect the 
        well-being of anyone they transfer to the UAE or other 
        governments or groups. Anyone being transferred out of a 
        country should be able to contest the transfer in that 
        country's courts. Transfers cannot be made if the person would 
        likely face torture or other major human rights abuses.


    Question 14. On June 27, 2017, the Associated Press issued a report 
detailing the torture of Yemeni detainees by Yemeni forces receiving 
support from the UAE. Please confirm that you have read this report.

    Answer. I have read this report.

    Question 15. What are the specific allegations they made regarding 
the torture inflicted upon detainees?

    Answer. According to the report, former inmates described being 
crammed into 3-by-10 meter shipping containers by the dozens, smeared 
with feces, blindfolded, and legs and hands bound for weeks on end, 
some for months. They said they were beaten, rotated on a spit and 
sexually assaulted, among other abuse. Others described being flogged 
with wires regularly and reported being inside a metal shipping 
container when the guards lit a fire underneath to fill it with smoke. 
A detainee reported being given electrical shocks on his neck, back, 
chin and ``sensitive parts'' of his body. One detainee said he 
underwent a fake execution where he was dressed in what he was told was 
an explosive suicide belt, then a sound grenade was set off near him. 
The United States Government does not have a presence or access to 
these facilities and is unable to verify the Human Rights Watch report.

    Question 16. What are the specific allegations made about the 
involvement of UAE forces? What are the locations of the UAE's secret 
prisons detailed in the report?

    Answer. According to the report, a member of the Hadramawt Elite 
alleged that American forces were at times only yards away from where 
torture was taking place. The report states that Department of Defense 
officials confirmed that U.S. forces have interrogated some detainees 
in Yemen but denied any participation in or knowledge of human rights 
abuses. The U.S. provides questions to the Emiratis and receives 
transcripts of their interrogations. According to the report, a Yemeni 
witness of American interrogations also told the AP that no torture 
took place during those sessions where he was present. The Department 
of Defense has responded that that U.S. forces have not witnessed or 
participated in such events.

    Question 17. What are the specific allegations made in the report 
regarding the involvement of U.S. interrogators?

    Answer. According to the report, a member of the Hadramawt Elite 
alleged that American forces were at times only yards away from where 
torture was taking place. The report states that Department of Defense 
officials confirmed that U.S. forces have interrogated some detainees 
in Yemen but denied any participation in or knowledge of human rights 
abuses. The U.S. provides questions to the Emiratis and receives 
transcripts of their interrogations. According to the report, a Yemeni 
witness of American interrogations also told the AP that no torture 
took place during those sessions where he was present. The Department 
of Defense has responded that that U.S. forces have not witnessed or 
participated in such events.

    Question 18. What has been the administration's response to these 
allegations?

    Answer. I understand that the Department of Defense conducted an 
investigation in July 2017 and determined that no U.S. officials had 
observed or participated in torture of detainees in Yemen. The 
administration has raised concerns about these allegations with UAE 
Government counterparts at senior levels through diplomatic, 
intelligence, and military channels and has urged the UAE to conduct a 
thorough investigation.
    We urge all parties, including the UAE, to treat prisoners and 
detainees humanely, and to ensure that abuses are investigated and 
those responsible are held accountable. All parties must act in 
accordance with international law, including human rights law and the 
laws of armed conflict.
    The administration has also asked the United Arab Emirates 
Government to take steps to prevent such incidents from occurring and 
has urged the Government to allow regular access by the International 
committee of the Red Cross (ICRC) to any detention facilities in Yemen 
under its control, so that it can ensure detainees are being treated in 
accordance with international law. It is my understanding that the UAE 
claims it has turned over management of all detention facilities in 
Yemen to the ROYG.
    Question 19. On January 26, 2018, the United Nations Panel of 
Experts issued a report that, among other things, included allegations 
of the unlawful detention and abuse of individuals in Yemen. Please 
confirm that you have read this report.

    Answer. I have read this report.

    Question 20. Please describe the Panel's findings on the role of 
UAE forces in the detention of individuals in Yemen and the specific 
Yemeni units they partnered with.

    Answer. The Panel found that the rule of law is deteriorating 
rapidly across Yemen, regardless of who controls a particular 
territory. It found that the Government of Yemen, the United Arab 
Emirates and Houthi-Saleh forces have all engaged in arbitrary arrests 
and detentions, carried out enforced disappearances and committed 
torture. The Panel reports that forces of the United Arab Emirates 
engaged in, or supervised, joint arrest operations with the Hadrami and 
Shabwani Elite Forces.

    Question 21. Please describe the abuses against detainees that the 
Panel found UAE forces were responsible for and the number of detainees 
the Panel estimated to be in the custody of UAE forces.

    Answer. The Panel found that forces of the United Arab Emirates 
were responsible for: (i) torture (including beatings, electrocution, 
constrained suspension and imprisonment in a metal cell (`the cage') in 
the sun); (ii) ill treatment; (iii) denial of timely medical treatment; 
(iv) denial of due process rights; and (v) enforced disappearance of 
detainees, in violation of international humanitarian law and 
international human rights law.

    Question 22. The Panel has requested from both the UAE and the 
Government of Yemen the relevant legal authority under which the UAE is 
authorized to arrest and detain individuals in Yemen. To your 
knowledge, have those authorities been provided?

    Answer. I am not aware whether those authorities have been 
provided. I would refer you to the Panel.

    Question 23. According to the Panel, has either the Yemeni or the 
UAE Governments conducted credible investigations into these reports of 
detention and abuse? To your knowledge, have either government 
conducted a credible investigation on this matter since the Panel's 
report was issued?

    Answer. I am not aware of the results of any such investigation and 
would refer you to the Panel. While the administration is not in a 
position to independently verify these reports, we have raised concerns 
about these allegations with UAE Government counterparts at senior 
levels through diplomatic, intelligence, and military channels and have 
urged the UAE to conduct a thorough investigation.
    Question 24. On June 20, 2018, the Associated Press released a 
second report detailing the sexual abuse of Yemeni detainees at UAE-
controlled prisons. Please confirm that you have read this report.

    Answer. I have read this report.

    Question 25. What are the specific allegations made in the report 
regarding the sexual torture inflicted upon detainees?

    Answer. The report includes allegations of rape, electrocution and 
abuse of prisoners' genitals, and sexual violation with wooden or steel 
poles.

    Question 26. What are the specific allegations made about the 
involvement of UAE forces? What are the locations of the UAE's secret 
prisons detailed in the report?

    Answer. The report alleges that Emirati forces and Yemeni guards 
under the direction of Emirati officers abused prisoners and states 
that the UAE runs secret prisons in southern Yemen, at Beir Ahmed, 
Buriqa, at the house of Aden's security chief, and in Wadah.

    Question 27. Has the UAE acknowledged the presence of any of its 
detention facilities inside or outside Yemen?

    Answer. The UAE has publicly stated that Yemeni authorities are in 
complete control of local and federal governance, judicial and prison 
systems, and that the UAE has never managed or run prisons or secret 
detention centers in Yemen.

    Question 28. What allegations are made regarding the presence of 
U.S. personnel in the report?

    Answer. The report alleges that U.S. personnel have been seen at 
the Buriqa base, along with Colombian mercenaries, according to two 
prisoners and two security officials. The detainees could not say 
whether the Americans, some of whom wear military uniforms, are members 
of the U.S. Government or mercenaries. It is my understanding that the 
Department of Defense has stated that U.S. forces have not witnessed or 
participated in such events.
    Question 29. On July 12, 2018, Amnesty International issued a 
report alleging that UAE-backed Yemeni forces have conducted hundreds 
of arbitrary arrests and committed serious violations, including 
enforced disappearance and torture and other ill-treatment. Please 
confirm that you have read this report.

    Answer. I have read this report.

    Question 30. Please describe the Yemeni forces named in the report 
and their relationships with the UAE, including support received from 
and cooperation with the UAE.

    Answer. The report refers to local Yemeni security forces known as 
the Security Belt and Elite Forces, and states that these forces were 
created, trained, equipped and financed by the UAE. The report states 
that the Security Belt forces operate in southern Yemen, and that the 
Elite Forces of Hadramawt and Shabwa perform military and police roles.

    Question 31. What recommendations does the report give for the 
Governments of Yemen and the UAE regarding the detention and treatment 
of detainees? What recommendations does the report have for the United 
States?

    Answer. The report recommends that the UAE Government:


   End all practices of arbitrary arrests, enforced disappearance, 
        torture and other ill treatment and human rights violations in 
        Yemen;

   Reveal the fate and whereabouts of all persons who have been 
        subjected to enforced disappearance and give those remaining in 
        custody access to the their families and to lawyers;

   Release all persons who have been arbitrarily arrested and detained 
        and hand their files over to Yemeni prosecutors to promptly 
        charge them with internationally recognizable criminal offenses 
        and try them in proceedings that fully comply with 
        international standards and without the possibility of the 
        death penalty.

   Reveal the locations of the detention facilities it runs or 
        supervises in Yemen and bring these under the supervision of 
        the Yemeni Prosecutor General.

   Allow independent monitors to access all places of detention it 
        runs or supervises in Yemen and to visit all detainees.

   Initiate a prompt, impartial investigation into the allegations of 
        violations of international humanitarian law committed by its 
        troops and the Yemeni forces it backs.

   Ensure that all individuals who have suffered violations of 
        international humanitarian law or serious violations and abuses 
        of human rights law are afforded an effective remedy and 
        reparations.

   Immediately implement the decisions of Yemeni prosecutors and 
        refrain from obstructing their release orders.

   Co-operate fully with the U.N.-appointed group of international 
        experts to investigate abuses by all parties to the conflict in 
        Yemen and provide it unhindered access to detention facilities 
        it runs and supervises.

   Ratify the International Covenant on Civil and Political Rights, 
        the International Convention for the Protection of all Persons 
        against Enforced Disappearance and the Rome statute of the 
        International Criminal Court.


    It recommends that the Government of the Republic of Yemen:

   Ensure that people in Yemen are protected from enforced 
        disappearance and other serious human right violations carried 
        out by agents of other states;

   Establish an office mandated to collect and centralize information 
        related to detainees and forcibly disappeared persons; the 
        office would be the main point of contact for updating 
        relatives on individual cases and for submitting information to 
        the prosecutorial authorities for investigation.

   Publicly clarify the authority under which the UAE and UAE-backed 
        forces carry out arrests and detention in Yemen, and take 
        effective measures to ensure that these forces fully comply 
        with international human rights law and international 
        humanitarian law;

   Ensure that all security forces are brought under its effective 
        control, and that prosecutors have jurisdiction over all those 
        deprived of their liberty and all detention facilities;

   Conduct prompt, effective and impartial investigations into the 
        alleged involvement of Yemeni officials and units in arbitrary 
        arrests, enforced disappearance, torture and other ill-
        treatment. Suspend officials suspected of responsibility 
        pending the outcome of investigations; wherever there is 
        sufficient admissible evidence of responsibility for serious 
        violations, prosecute suspects in fair trials;

   Initiate a prompt, effective, and impartial investigation into the 
        conduct of UAE forces in Yemen and allegations of violations of 
        international humanitarian law and other serious violations and 
        abuses of human rights law against them;

   Ensure that law enforcement officials provide a response to the 
        numerous correspondences sent to them by various government 
        entities and families of disappeared detainees inquiring about 
        the whereabouts of these persons unlawfully deprived of their 
        liberty.

   Ensure that all individuals who have suffered violations of 
        international humanitarian law or serious violations and abuses 
        of human rights law are afforded an effective remedy and 
        reparation, including restitution, compensation, 
        rehabilitation, and guarantees of non-repetition;

   Ratify the International Convention for the Protection of all 
        Persons from Enforced Disappearance and the Rome Statute of the 
        International Criminal Court.

   Extend invitations to the Special Rapporteur on torture and other 
        cruel, inhuman or degrading treatment or punishment and to the 
        Working Group on Enforced or Involuntary Disappearances, and 
        facilitate their visits.


    It recommends that the Prosecutor General of Yemen:

   Initiate prompt, impartial and effective investigations into 
        allegations of torture and other ill-treatment, deaths in 
        custody, arbitrary detention and enforced disappearances by 
        Yemeni and UAE forces even if specific complaints were not 
        formally filed;

   Continue efforts to try to bring unofficial detention facilities 
        under judicial oversight;

   Ensure that officials responsible for security forces and directors 
        of detention facilities require their subordinates to maintain 
        records regarding every detainee, including the date, time, and 
        location of arrest, the name of the detainee, the reason for 
        detention, and the specific unit or agency.


    And it recommends that the United States:

   Refrain from receiving information likely to have been obtained 
        through use of torture or other ill-treatment and take 
        preventive measures to ensure that intelligence sharing between 
        states does not reward unlawful interrogation practices;

   Actively promote the compliance of counter-terrorism partners, 
        namely the UAE, with international humanitarian law and respect 
        for human rights, in particular the absolute prohibition of 
        torture and other ill-treatment.

   Facilitate independent oversight, including by the U.S. Congress, 
        over U.S. military or intelligence cooperation with Yemeni and 
        UAE forces involved in detention activities in Yemen. 
        Investigate the role of U.S. military or intelligence personnel 
        in detention-related abuses in Yemen and comply with all legal 
        investigation and reporting requirements related to this issue.

   Once accountability mechanisms are in place, ensure that any forces 
        in Yemen with whom the USA is cooperating with receive 
        appropriate training in human rights and international 
        humanitarian law, including in international standards for law 
        enforcement.

   Suspend the supply of weapons, munitions, and related military 
        equipment to the UAE and other parties to the conflict in 
        Yemen, where there is a substantial risk of these arms being 
        used in Yemen.


    Question 32. On August 28, 2018, the U.N. Human Rights Council's 
Group of Regional and International Eminent Experts on Yemen issued a 
report that, among other concerns, detailed widespread arbitrary 
detention and abuse by UAE-backed Yemeni Forces and UAE forces. Please 
confirm that you have read this report.

    Answer. I have read this report.

    Question 33. Please list the UAE-backed forces named in the report 
and the abuses alleged against them.

    Answer. The United Arab Emirates has established control across 
southern Yemen, both by its direct action and through its proxy forces, 
namely the Security Belt Forces, the Hadrami Elite Forces and the 
Shabwani Elite Forces. The Southern Transitional Council forces, backed 
heavily by the United Arab Emirates, continue to control major cities 
in southern Yemen.
    The report states that hundreds of individuals have been detained 
for perceived opposition to the Government or to the United Arab 
Emirates in detention facilities or undeclared centers under the 
control of the United Arab Emirates. According to the report, detainees 
have been subjected to torture and other cruel treatment in facilities 
such as the Al Rayyan and Bureiqa facilities (controlled by the United 
Arab Emirates); the 7 October facility in Abyan, Lahij Central Prison 
and Al Mansoura Prison (controlled by Security Belt Forces); and Ma'rib 
Political Security (controlled by the Government). The Group of Experts 
also investigated sexual violence, including rape of adult male 
detainees, committed by United Arab Emirates personnel.

    Question 34. Please describe the abuses against detainees that the 
Group found UAE forces were responsible for, and the role of UAE-
controlled facilities in the detention and abuse of Yemenis.

    Answer. The Group has reasonable grounds to believe that the 
Governments of Yemen, the United Arab Emirates and Saudi Arabia are 
responsible for human rights violations, including enforced 
disappearance. As most of these violations appear to be conflict 
related, they may amount to the following war crimes: rape, degrading 
and cruel treatment, torture and outrages upon personal dignity.
    According to the report, detainees were not informed of the reasons 
for their arrest, were not charged, were denied access to lawyers or a 
judge and were held incommunicado for prolonged or indefinite periods. 
Parties to the conflict are using undeclared detention facilities in an 
apparent, and if confirmed unlawful, attempt to put detainees outside 
the reach of the law. A few individuals detained in areas under the 
control of the de facto authorities reported that they had been brought 
before tribunals where proceedings flouted basic due process standards, 
including the right to legal representation. Death sentences have been 
passed and implemented in Sana'a and Aden, in the absence of due 
process standards.
    According to the report, in detention, during interrogation and 
while blindfolded and/or handcuffed, detainees were beaten, 
electrocuted, suspended upside down, drowned, threatened with violence 
against their families and held in solitary confinement for prolonged 
periods in violation of the absolute prohibition on torture, cruel or 
inhuman treatment. Reports indicate poor material conditions and 
grossly inadequate medical care for detainees. The Group has also 
received allegations of deaths in custody.
    The Group of Experts also investigated sexual violence, including 
rape of adult male detainees, committed by United Arab Emirates 
personnel. Detainees described being interrogated while naked, bound 
and blindfolded, sexually assaulted and raped. In March 2018, nearly 
200 detainees were stripped naked in a group while personnel of the 
United Arab Emirates forcibly examined their anuses. During this 
search, multiple detainees were raped digitally and with tools and 
sticks.

    Question 35. What recommendations does the report give for the 
Governments of Yemen and the UAE regarding the detention and treatment 
of detainees?

    Answer. (i) Ensure that all persons deprived of their liberty have 
their detention reviewed by a judge in compliance with national and 
international law; (ii) Ensure that arrests of individuals in 
connection with the ongoing conflict are carried out on legal grounds 
only and supported by credible and sufficient evidence; (iii) Document 
all unofficial detention centres and transfer detainees to official 
detention facilities in line with national and international law; and 
(iv) Create a national register for missing persons and inform families 
of the whereabouts of all detainees.


    Question 36. Given the findings of these reports, do you agree or 
disagree with the conclusions of the U.N. Panel of Experts on Yemen and 
the Group of Independent Eminent International and Regional Experts of 
United Nations High Commissioner for Human Rights that the UAE has 
responsibility for secret or undeclared detention facilities in Yemen?

    Answer. While I am not in a position to determine responsibility, I 
find these reports disturbing. The administration has raised its 
concerns regarding the reports of detainee abuses in detention 
facilities in Yemen with UAE military and diplomatic officials.

    Question 37. Given the findings of these reports, do you agree or 
disagree with the conclusions of the U.N. Panel of Experts on Yemen and 
the Group of Independent Eminent International and Regional Experts of 
United Nations High Commissioner for Human Rights that the UAE has 
responsibility for the torture and disappearances of detainees in Yemen 
by its own forces or by Yemeni forces under the UAE's effective control 
or direction?

    Answer. The administration is not able to independently verify the 
allegations upon which the findings of the reports are based, but given 
the seriousness of the allegations, we have raised and will continue to 
raise with the UAE Government the importance of investigating such 
reports and ensuring that any forces found to have engaged in such 
abuses are held accountable.

    Question 38. If you are confirmed, what steps will you take to 
investigate the allegations of illegal detention and torture by UAE-
backed Yemeni forces and UAE forces in Yemen? What steps will you take 
to push those forces to release any and all unjustly held individuals 
and to hold accountable those responsible for arbitrary detention and 
torture?

    Answer. If confirmed, I will work closely with administration 
colleagues to continue to urge all parties, including the UAE, to treat 
prisoners and detainees humanely, and to ensure that abuses are 
investigated and those responsible are held accountable. In my 
engagements with Yemeni Government and Saudi-led Coalition officials, I 
will urge all parties to allow regular access by the International 
committee of the Red Cross (ICRC) to any detention facilities in Yemen 
under their control, so that it can ensure detainees are being treated 
in accordance with international law.

    Question 39. Do you agree or disagree with the conclusions of the 
U.N. Panel of Experts on Yemen and the Group of Independent Eminent 
International and Regional Experts of United Nations High Commissioner 
for Human Rights that the UAE is, in effect, supporting the breakup of 
Yemen through its support for the separatists of southern Yemen?

    Answer. The UAE is an important partner of the United States in 
combatting AQAP in southern Yemen and has repeatedly stated in 
diplomatic engagements its support for the territorial integrity and 
unity of Yemen. The South has been a sensitive political issue for 
Yemen for a very long time and it is the administration's position that 
Southern issues should be addressed through ROYG-led intra-Yemeni 
discussions and negotiations. Any future political solution or 
agreement in Yemen should be representative and include the voices of 
all Yemenis.
Security Training Oversight
        The U.S. Embassy in Yemen has been closed since 2015. The U.S. 
        has pledged over half a billion dollars to Yemen in FY 2018. 
        However, if confirmed, you will still have an important role in 
        approving, monitoring and conducting oversight on U.S. security 
        assistance in Yemen.

    Question 40. Do you believe that our ability to evaluate and 
monitor U.S. assistance in Yemen is sufficient?

    Answer. If confirmed, I will take end-user assurances, equipment 
security, and monitoring very seriously. Yemen remains a country in the 
middle of a civil war. It is my understanding that any assistance to 
Yemen undergoes an interagency process that assesses the U.S. 
Government's ability to evaluate and monitor assistance in-country, 
among other things. We do not provide U.S. assistance to a country if 
we are not satisfied after this review.

    Question 41. Given the Saudi-led Coalition pledges of assistance, 
where can U.S. assistance be most effective and value added?

    Answer. According to the U.N., Yemen's humanitarian crisis is 
currently the world's worst. Any assistance to Yemen, especially 
through U.N. channels, is of great use. The U.S. works with the U.N., 
other donors, and humanitarian organizations to coordinate response 
efforts and make sure aid is reaching the people who need it most. If 
confirmed as Ambassador to Yemen, I will be part of these ongoing 
efforts to make sure that we maximize the positive impact of any aid 
coming from the United States. In addition, I will work hard to build 
on efforts to reform Yemen's governing and economic institutions to 
increase the services to all the country's citizens.
Civilian Casualties
        Secretary Pompeo certified in September that the Saudi-led 
        coalition was ``undertaking demonstrable actions to reduce the 
        risk of harm to civilians and civilian infrastructure resulting 
        from military operations.'' However, over the same time period 
        there was a significant increase in civilian casualties and 
        deaths from Saudi-led coalition airstrikes.

    Question 42. Mr. Henzel, you are in a unique to position to provide 
this committee with insights into the efforts of the Saudi military to 
reduce civilian casualties, given your most recent position as the 
Charge d'Affairs in Riyadh. In your assessment, has the Saudi military 
applying effective measures to protect civilians and reduce civilian 
casualties in Yemen?

    Answer. The United States consistently urges the Saudi-led 
Coalition to take all feasible precautions to reduce the risk of harm 
to civilians, take appropriate measures when such casualties occur, and 
draw lessons from operations to reduce the risk of harm to civilians. 
We have seen tangible steps by the Saudi-led Coalition to reduce 
civilian casualties, including designation of over 10,000 targets on a 
No-Strike List. The Saudi Government has further provided significant 
humanitarian aid to Yemeni civilians as well as provided financial 
support to stabilize the country's faltering economy.
    That said, we have consistently said that more needs to be done. If 
confirmed, I will continue to engage counterparts to make sure this 
issue remains a top priority for all parties involved. We will continue 
to press all parties to the conflict in Yemen to take all feasible 
measures to mitigate the impact of the conflict on civilians and to 
investigate fully all credible allegations of international 
humanitarian law violations and hold all those responsible to account.

    Question 43. Did you support the decision to certify in Section 
1290 of the FY 19 National Defense Authorization Act that the Saudi 
Government is undertaking ``demonstrable actions to reduce the risk of 
harm to civilians and civilian infrastructure resulting from military 
operations'' in Yemen?

    Answer. Pursuant to section 1290 of the Fiscal Year (FY) 2019 
National Defense Authorization Act (NDAA the Secretary certified that 
Saudi Arabia and the UAE are supporting diplomatic efforts to end the 
civil war, taking appropriate measures to alleviate the humanitarian 
crisis, and undertaking demonstrable actions to reduce the risk of harm 
to civilians and civilian infrastructure. As a part of this decision-
making process, I along with many stakeholders throughout the 
Department, and the Department of Defense and USAID, provided 
information to the Secretary to allow him to make an informed decision.

    Question 44. Last week, Secretary Pompeo announced $131 million in 
additional food assistance for Yemen, to be provided through the U.N. 
World Food Program (WFP). However, this announcement came after WFP had 
already raised the alarm that in recent weeks, imports through Hodeidah 
have fallen by nearly half, at a time when roughly 50 percent of the 
country's population is on the brink of starvation, and when 85,000 
children have been estimated to have died from starvation. How does the 
administration expect the WFP and other agencies to successfully 
implement food dstributions with this new funding without also 
sufficiently addressing humanitarian access constraints by parties to 
the conflict?

    Answer. The administration takes humanitarian access constraints 
very seriously. We recognize that scaling up to the level needed will 
be a significant challenge. The United States continues to call on all 
parties to the conflict to take all feasible measures to allow for the 
free flow of humanitarian and commercial goods through the ports and 
around the country. We routinely encourage our partners to increase 
their contributions, as well as to avoid the obstruction of visas and 
movement of humanitarian aid workers. We urge them to do everything 
they can to facilitate the timely delivery of this life-saving 
assistance.

    Question 45. For roughly a year, nearly all humanitarian NGOs 
operating in Yemen--including U.S.-funded ones--have had to circumvent 
the port of Hodeidah and instead ship humanitarian commodities and 
supplies through Aden in the south, due to ongoing conflict around 
Hodeidah and Saudi/UAE coalition bureaucratic constraints. NGOs report 
this significantly increases time, costs, and risk for delivering aid 
to the millions of Yemenis in need. What has the administration done in 
its engagement with the Saudis, Emiratis, and Hadi Government to reduce 
bureaucratic restrictions through Aden port and onward across the 
country?

    Answer. While Hudaydah port remains operational, the administration 
recognizes that bureaucratic obstacles at all ports lead to unnecessary 
and unhelpful delays that cost humanitarian partners time, money and, 
in some cases, their perishable goods. These are goods that need to 
make it to the most vulnerable Yemenis who are acutely and 
catastrophically food insecure. On December 1, the United States, 
United Kingdom, Saudi Arabia, and the United Arab Emirates met with the 
U.N. to discuss humanitarian access and other challenges, including the 
backlog at Aden Port. We will continue working with the Saudi-led 
Coalition and Yemeni Government to address the problems there. The 
United States continues to call on all parties to improve access 
restraints and take all feasible measures to allow for the free flow of 
humanitarian and commercial goods through the ports and around the 
country.

    Question 46. As Ambassador to Yemen, what steps will you take to 
increase the flow of goods through Hodeidah?

    Answer. The United States strongly supports U.N. Special Envoy 
(UNSE) Martin Griffiths' efforts to de-escalate tensions in and around 
Hudaydah and his proposal to create a U.N. role in the port's 
operation. The United States continues to call on all parties to 
improve access and take all feasible measures to allow for the free 
flow of humanitarian and commercial goods through the ports and around 
the country. If confirmed as Ambassador to Yemen, I will continue to 
work towards these goals.

    Question 47. The Senate has shown that we are deeply concerned 
about the humanitarian situation in Yemen. Given that you will be 
situated in Saudi Arabia, how will you work both with the Saudi 
Government and independent of the Saudi Government to prevent a further 
decline of the humanitarian situation?

    Answer. The United States is one of the largest donors of 
humanitarian assistance to the Yemen response, providing more than $697 
million in aid since fiscal year 2018. If confirmed as Ambassador to 
Yemen, I will continue to assess Yemen's humanitarian needs, and will 
work closely with the U.S. Embassy in Saudi Arabia to coordinate our 
efforts with the Saudi Government and the U.N. to address shortcomings 
and improve the humanitarian situation in Yemen. Bringing an end to the 
conflict represents the most positive step that would have the greatest 
impact on resolving the humanitarian crisis and the underlying economic 
collapse that is feeding it. To this end, the administration will 
continue to support U.N. Special Envoy Martin Griffiths' efforts to 
bring both sides of the table for negotiations.

    Question 48. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have consistently impressed upon government officials 
that their respect for human rights has a direct bearing on how their 
countries are perceived in the United States and on American support 
for bilateral cooperation. During my time as Deputy Chief of Mission 
and Charge d'Affaires in Saudi Arabia, I regularly raised the cases of 
detained activists, including female activists who fought to lift the 
driving ban and for revisions to guardianship laws that restricted 
opportunities for women in employment and public life. Last month, I 
personally raised the travel ban that had been placed on Jamal 
Khashoggi's son, Saleh, with Saudi Interior Minister Prince Abdel Aziz 
Al Saud; I was pleased to see that Saudi officials then permitted Saleh 
to travel to the United States. I cannot claim that my engagements in 
Riyadh on human rights always have been successful, but letting the 
Government there know that we are monitoring and care about these 
issues is essential, and something on which I will continue to engage 
seriously if confirmed as U.S. Ambassador to Yemen.

    Question 49. What issues are the most pressing challenges to 
democracy or democratic development in Yemen? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The most pressing challenges to democracy in Yemen include 
extrajudicial killings, forced disappearances and kidnappings, as well 
as reports of torture and harsh and life-threatening conditions in 
prison following arbitrary arrest and detention by Yemeni Government, 
Houthi, and external actors. Other issues include arbitrary 
infringements on privacy rights; repression of the freedoms of 
expression, the press, association, and the right to peaceful assembly. 
We also remain concerned about the inability of citizens to choose 
their government through free and fair elections. Finally, there is 
unlawful recruitment and use of child soldiers and trafficking in 
persons, including forced labor. The Republic of Yemen Government has 
taken some steps to investigate, prosecute, and punish those found to 
have committed crimes related to such violations and abuses.

    Question 50. What steps will you take--if confirmed--to support 
democracy in Yemen? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The ongoing conflict in Yemen has created a complex network 
of regional authorities that poses a significant challenge to 
protecting democracy and human rights. The closure of Sanaa airport and 
Coalition restrictions on media and human rights organizations' ability 
to travel into and out of the capital severely restrict independent 
investigation and monitoring of human rights violations in the north. 
Our access to areas of Houthi influence remains severely limited. In 
addition, Houthi influence over government institutions where they do 
operate has severely reduced the Government's capacity to conduct 
investigations. If confirmed, I will give full U.S. support to national 
reconciliation efforts that will bring all Yemenis under the authority 
of a government that is responsive to their needs and that can credibly 
investigate instances of human rights abuse when they occur. I will 
also demonstrate to the Yemeni Government that human rights are a 
priority U.S. interest by continuing to push the Government to build 
its own capacity to fully and transparently investigate incidents when 
they occur.

    Question 51. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. I will work with our Public Affairs Section to ensure that 
Yemenis benefiting from State Department and USAID funding are in fact 
the ones best placed to benefit from these programs. Whenever possible, 
I will prioritize diversity in the recipients of such benefits, to 
ensure that we are practicing what we preach when we push the parties 
to the conflict on an inclusive approach to national reconciliation. In 
addition to efforts at the national level, I will push for continued 
engagement at the local level with diverse recipients and partners 
across Yemen.

    Question 52. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Yemen? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. I am deeply committed to human rights and will work closely 
with civil society and non-governmental organizations to ensure that 
Yemenis' voices are heard on this important set of issues. Even in 
cases where we cannot physically reach the victims of human rights 
abuses, we can work with humanitarian organizations that have the 
access to advocate on their behalf. I will closely monitor any efforts 
by the Yemeni Government or the Houthis to restrict or penalize the 
freedom of civil society groups to operate without fear of reprisal.

    Question 53. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I will welcome engagement with all 
democratically oriented actors interested in a stable, unified Yemen, 
and will also encourage these parties to dialogue with one another. I 
will promote genuine political competition by ensuring the Yemen 
Affairs Unit retains a broad contact base that is representative of all 
Yemenis, not just those currently in power, and that we emphasize the 
importance of including women, minorities, and youth in any national 
dialogue that occurs during my tenure.

    Question 54. Will you and your embassy team actively engage with 
the Government of Yemen on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Yemen?

    Answer. If confirmed, I will register our concerns regarding 
government efforts designed to control or undermine freedom of 
expression for members of the press, at the highest level of Yemen's 
Government. I will underscore to my Public Affairs team the importance 
of meeting independent, local Yemeni press. If face-to-face meetings 
are not possible, I will ensure my team has the resources to facilitate 
connections over voice or video calls.

    Question 55. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. I will emphasize to my team the importance of identifying 
and countering disinformation and propaganda disseminated by foreign 
state and non-state actors, and work with civil society and government 
counterparts to address such messaging.

    Question 56. Will you and your embassy teams actively engage with 
the Government of Yemen on the right of labor groups to organize, 
including for independent trade unions?

    Answer. I recognize the important role that unions have in 
organizing and informing workers around the world. My team will 
actively engage the Yemen Government on the importance of protecting 
workers' right to organize and to form independent trade unions.

    Question 57. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Yemen, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Yemen? What specifically will you commit to do to help LGBTI 
people in Yemen?

    Answer. LGBTI persons face significant discrimination and even the 
death penalty in Yemen, although there have been no known executions of 
LGBTI persons in more than a decade. The penal code criminalizes 
consensual same-sex sexual conduct, with the death penalty as a 
sanction under the country's interpretation of Islamic law. Due to the 
illegality of and possible severe punishment for consensual same-sex 
sexual conduct, there are no LGBTI organizations, limiting the 
community's ability to organize to assert its rights. If confirmed, I 
will defend the human rights and dignity of all people in Yemen, 
irrespective of their sexual orientation or gender identity.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Christopher Paul Henzel by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have consistently impressed upon foreign government 
counterparts that their respect for human rights has a direct bearing 
on how the United States perceives their countries and on American 
support for bilateral cooperation. During my time as Deputy Chief of 
Mission and Charge d'Affaires in Saudi Arabia, I regularly raised the 
cases of unlawfully or arbitrarily detained activists, including female 
activists who fought to lift the driving ban and for revisions to 
guardianship laws that restricted opportunities for women in employment 
and public life. Last month, I personally raised the travel ban that 
had been placed on Jamal Khashoggi's son, Saleh, with Saudi Interior 
Minister Prince Abdel Aziz Al Saud; I was pleased to see that Saudi 
officials then permitted Saleh to travel to the United States. It is a 
top priority for me to ensure that my counterparts in the Saudi 
Government fully understand the United States Government monitors and 
cares greatly about these issues. This remains a priority on which I 
will continue to engage seriously if confirmed as U.S. Ambassador to 
Yemen.

    Question 2. What are the most pressing human rights issues in 
Yemen? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Yemen? What do you 
hope to accomplish through these actions?

    Answer. Due to the ongoing conflict, our most pressing current 
concerns in Yemen are to mitigate civilian casualties and alleviate the 
dire consequences of the humanitarian situation. We have worked closely 
with U.N. Special Envoy Martin Griffiths, the Republic of Yemen 
Government (ROYG), and the Coalition to promote peace, prosperity, and 
security in Yemen through a negotiated peace settlement.
    Pressing human rights issues in Yemen also include extrajudicial 
killings, forced disappearances and kidnappings, and reports of torture 
and harsh, life-threatening conditions in prison following arbitrary 
arrest and detention by Yemeni Government, Houthi, and external actors. 
Other issues include arbitrary infringements on privacy rights; 
repression of the freedoms of the press, expression, association, and 
the right of peaceful assembly; and the inability of citizens to choose 
their government through free and fair elections. Finally, there is 
unlawful recruitment and use of child soldiers and trafficking in 
persons, including forced labor. The ROYG, to the best of its ability, 
has taken some steps to investigate, prosecute, and punish officials 
found to have committed crimes related to human rights violations and 
abuse. Their capacity, however, will remain limited as long as the 
conflict continues. If confirmed, I will give full U.S. support to 
national reconciliation efforts that will bring all Yemenis under the 
authority of a government that is responsive to their basic needs and 
can credibly investigate instances of human rights violations and abuse 
when they do occur. I will also demonstrate to the Yemeni Government 
that human rights are a priority U.S. interest by continuing to push 
the Government to build its own capacity to fully and transparently 
investigate incidents when they occur.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Yemen in advancing 
human rights, civil society and democracy in general?

    Answer. Our access to areas under Houthi influence remains severely 
limited. The closure of Sana'a airport and Coalition restrictions on 
media and human rights organizations' ability to travel into and out of 
the capital severely restrict independent investigation and monitoring 
of human rights violations in the north. In addition, Houthi influence 
over government institutions where they operate has severely reduced 
the Government's capacity to conduct investigations. The ongoing 
conflict in Yemen has created a complex network of regional authorities 
that poses a significant challenge to protecting human rights.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Yemen? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am deeply committed to human rights and will work closely 
with civil society and non-governmental organizations to ensure that 
Yemenis' voices are heard on this important set of issues. Even in 
cases where we cannot physically reach the victims of human rights 
abuses, we can work with organizations that have the access to advocate 
on their behalf. I will ensure that my staff are adequately trained so 
that all procedures associated with Leahy vetting are followed before 
security forces are provided U.S. assistance.

    Question 5. Will you and your embassy team actively engage with 
Yemen to address cases of key political prisoners or persons otherwise 
unjustly targeted by Yemen?

    Answer. If confirmed, I will continue the work of my predecessor in 
ensuring that all those unjustly targeted in Yemen, by any party to the 
conflict, will receive full U.S. support. I will work to broaden our 
contact base and ensure it covers at-risk populations. I will use our 
messaging platforms to underscore U.S. opposition to the unlawful 
detention of political prisoners wherever it occurs. I understand the 
Yemen Affairs Unit's Regional Security Office engages regularly with 
both the Government authorities and the Houthis on the issue of 
detainees. I plan to work closely with our security experts on these 
matters.

    Question 6. Will you engage with Yemen on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage fully with the Government of 
Yemen on these matters and to message the leaders of the Republic of 
Yemen Government and the Houthi movement on their importance. A 
comprehensive political agreement to end the Yemen conflict must 
provide guarantees of fundamental freedoms, and rule of law.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Yemen?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. In my current assignment as Deputy Chief of Mission and 
Charge in Riyadh, I have made clear that the U.S. Government's 
commitment to equal employment opportunity should be respected and 
promoted. I have encouraged the expansion of the Equal Employment 
Opportunity Counselor program at the Embassy in Riyadh and at the 
consulates general in Jeddah and Dhahran, and have met monthly with 
them and supported their work. I will continue this approach if 
confirmed as chief of mission for Yemen.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I will make clear to supervisors that both they and I are 
expected to support the Department's management precepts, including 
commitment to equal employment opportunity, and will strive to 
reinforce this message by my example.

    Question 12. How does political corruption impact democratic 
governance and the rule of law?

    Answer. Political corruption robs citizens of their right to 
participate in their government or to reap the benefits of that 
participation. When government officials use public power for personal 
gain, we all lose. This is as true for the United States as it is for 
Yemen or any other country. I will bring our core value of transparency 
and accountability in government to my work in Yemen.

    Question 13. What is your assessment of corruption trends in Yemen 
and efforts to address and reduce them by the Government of Yemen?

    Answer. Transparency International ranked Yemen 175 out of 180 
countries in its 2017 Corruption Perceptions Index. A culture of 
corruption is pervasive and can be found in nearly every government 
office, with officials benefiting from insider arrangements, 
embezzlement, and bribes, especially in the security sector. Political 
leaders and most government agencies have taken negligible action to 
combat corruption; their capacity to do so has been severely limited 
since the outbreak of war. The Central Organization for Control and 
Audit (COCA), a national auditing agency for public expenditures and 
the investigative body for corruption, has not conducted any known 
investigations since 2015, when the Houthis took control over most 
government agencies, including COCA.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Yemen?

    Answer. If confirmed, I will ensure first and foremost that my 
staff understands that any malfeasance or complicity in local corrupt 
activities will not be tolerated. I will also ensure all of our 
contacts and interlocutors, no matter how senior, understand the U.S. 
stance on corruption, and will encourage them to work with the Embassy 
to develop programming to improve the Yemeni Government's internal 
capacity to prevent corruption. Finally, I will work with our Public 
Affairs Section to ensure that Yemeni Government officials benefiting 
from U.S. training or programming are in fact the ones best placed to 
benefit from these programs.



                               __________


     Responses to Additional Questions for the Record Submitted to 
           Christopher Paul Henzel by Senator Jeanne Shaheen

    Question 1. Following Secretary Mattis and Secretary Pompeo calling 
for a ceasefire in Yemen we saw a dramatic increase in attacks from the 
Saudi-led coalition. What do you assess as the reason for this surge 
and does the ceasefire have any chance of taking hold? What does 
success in Yemen realistically look like for the Saudis?

    Answer. The Coalition at this point has begun to observe Secretary 
Pompeo's October 30 call for a cessation of hostilities by de-
escalating all but defensive operations in and around Hudaydah as a 
measure of support for the political process. The Coalition has also 
signaled its support for political negotiations to proceed by 
supporting the United Nations Special Envoy efforts this week in 
Sweden.
    Saudi Arabia's primary goal is to stop the growing malign influence 
of Iran in the Arabian Peninsula--a goal we share. With constant U.S. 
and U.N. diplomatic engagement, we seek to move all parties forward in 
the political process.

    Question 2. Congress established firm benchmarks on avoiding 
civilian casualties in the NDAA. In your capacity in Riyadh now and, if 
confirmed, working on Yemen, how would you work to reduce civilian 
casualties in this war?

    Answer. The United States consistently urges the Saudi-led 
Coalition to take all feasible precautions to reduce the risk of harm 
to civilians, take appropriate measures when such casualties occur, and 
draw lessons from operations to reduce the risk of harm to civilians. 
If confirmed as Ambassador, I will continue that engagement to the 
utmost extent possible. Working with Department of Defense partners, we 
will continue to engage the Coalition and regional leaders at all 
levels. Through continued bilateral and multilateral training efforts 
and exercises, we will seek to bolster the Coalition's adherence to 
international rules of engagement, respect for international 
humanitarian law, and best military practices to avoid civilian 
casualty incidents.

    Question 3. The murder of Jamal Khashoggi underscored the 
increasing tension in our relationship with Saudi Arabia. In your view 
should we change our approach to our relationship with the Kingdom?

    Answer. The murder of Jamal Khashoggi was a terrible, heinous act. 
We have sanctioned those against whom we have evidence they had a role 
in the murder, including visa restrictions and financial sanctions on 
17 individuals under the Global Magnitsky Act. As the President and the 
Secretary have stated, we will continue to work to ascertain the facts, 
assess all information, and promote accountability, and we have 
consistently urged the Saudis to do the same as they continue their 
investigation. At the same time, the President has been clear that his 
priority is the safety and security of the American people, and part of 
that requires good partners and stability in the Middle East. The 
Kingdom of Saudi Arabia is an important part of that effort, and it 
remains in our national interest to maintain the important strategic 
relationship.
    I can assure you that our engagement with the Saudi Government on 
the Khashoggi murder continues on a daily basis. My colleagues in 
Riyadh and Washington engage their Saudi and international counterparts 
on this matter at every opportunity, and continually examine next steps 
to ensure American interests are best served. We will continue to urge 
the Saudi Government to produce a credible, transparent investigation 
and legal process, and to hold accountable not only those who executed 
the murder, but also those who led and were involved or connected to 
it.

    Question 4. What tools does the U.S. and global community have to 
bring the Houthis to the negotiating table? In your assessment, does 
power-sharing have a better chance of drawing the Houthis to 
negotiations?

    Answer. The United States strongly supports the efforts of the U.N. 
Special Envoy's office to bring all sides of the conflict to the 
negotiating table. We encourage international partners, including the 
Saudi-led Coalition and Yemeni leaders, to continue to meet with U.N. 
Special Envoy Martin Griffiths to engage in the political process and 
map a stable political future for Yemen. We also leverage countries 
with known ties to the Houthis, such as Oman, to leverage their 
influence. The administration has repeatedly admonished Iran for its 
provision to the Houthis of ballistic missiles that threaten Saudi 
Arabia's major population centers.
    When negotiations commence, all sides will have to make compromises 
in order to reach a political solution. During negotiations, Griffiths 
must address Houthi threats to Saudi Arabia's legitimate national 
security concerns. The Saudis will have to make compromises of their 
own, as the Houthis will likely retain a political role in Yemen. A 
durable commitment must have buy-in of key Yemeni parties, including 
the Republic of Yemen Government, Houthis, southerners, and other 
Yemeni actors.

    Question 5. In your assessment, are further Yemen-related sanctions 
on Iran impactful on the Houthis' ability and will to fight in Yemen? 
How would you describe the scope of the Iranian--Houthi relationship?

    Answer. Iran's provision of a broad range of weaponry to the 
Houthis, including rockets and missiles, exacerbates this conflict and 
advances Iran's regional ambitions. The Houthis have repeatedly used 
Iranian ballistic missile and cruise missile technology and have 
targeted Aramco facilities, Red Sea shipping lanes, and various 
locations in Riyadh, including the international airport. Additionally, 
the Houthis also launch rockets along and across Saudi Arabia's 
southern border on an almost daily basis. More than 100,000 U.S. 
citizens live in Saudi Arabia.
    It is my understanding that further sanctions on Iran and Iranian-
backed groups are only one tool under consideration to limit Iranian 
malign activities in the region. The administration is strengthening 
its engagement with regional governments to improve their support for, 
and compliance with, the arms embargo in U.N. Security Council 
Resolution (UNSCR) 2216. The United States publicly displayed recovered 
materiel from Houthi missile attacks and shared this information with 
the Secretariat and the independent U.N. Panel of Experts charged with 
investigating violations of UNSCR 2216. In the medium-to-long term, 
resolution of the conflict in Yemen will reduce the instability in 
which the Iranian regime spreads its influence.



                               __________


     Responses to Additional Questions for the Record Submitted to 
          Christopher Paul Henzel by Senator Edward J. Markey

    Question 1. During your testimony, you said that the administration 
was working to address humanitarian access issues in the port of Aden. 
Can you clarify what we are exactly doing to encourage the Hadi 
Government and coalition to ensure that impediments to humanitarian 
access to the port are removed?

    Answer. We continue to raise with all parties the importance of 
ensuring unfettered access for humanitarian aid and commercial goods, 
especially food, fuel, and medicine, to reach Yemen. On December 1, the 
United States, the United Kingdom, Saudi Arabia, and the United Arab 
Emirates met with the U.N. to discuss humanitarian access and other 
challenges, including the backlog at Aden Port. We will continue 
working with the Saudi-led Coalition and Yemeni Government to address 
the problems there. The United States continues to call on all parties 
to improve access and take all feasible measures to allow for the free 
flow of humanitarian and commercial goods through the ports and around 
the country. In response, we understand the Coalition has agreed to 
deploy additional cargo scanners to expedite the inspection process as 
one means of addressing the backlog.

    Question 2. There are reports that the U.S. is slow rolling the 
introduction of a UK-drafted resolution at the U.N. Security Council 
calling for a ceasefire and increased humanitarian aid in Yemen. Can 
you confirm these reports?

    Answer. We remain in constant communication with the British 
Government to ensure that the proposed U.N. Security Council 
Resolution's timing and content support the U.N.-led talks in Sweden. 
Both the United States and the UK firmly support the U.N. Special 
Envoy's efforts to bring about a political process, which remains our 
priority. We continue to coordinate closely on the U.N. process and 
will take stock of next steps once the talks in Sweden run their 
course.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 John Barsa by Senator Robert Menendez

        In Congress, there is broad bipartisan consensus that the U.S. 
        Government must work with our partners in the region to address 
        the root causes--lack of security, weak rule of law, and 
        extreme poverty--pushing people to leave their countries and 
        migrate to the United States. Parents and families have a 
        choice: stay and die, or flee and have a chance at a better 
        life. That is why Congress, in recent years has provided 
        increased foreign assistance to Central America in order to 
        tackle these challenges. To that end:

    Question 1.  How will you push back against proposed budget cuts 
and make sure that USAID has the funding to carry out its critical 
missions to address community security, strengthen democratic 
governance, and facilitate conditions for broad-based economic growth?

    Answer. As I stated in my nomination hearing, I believe the efforts 
of the U.S. Agency for International Development (USAID) in Central 
America are critical to the U.S. national interest, and I would be a 
vocal advocate for this work within the Executive Branch, and with the 
U.S. Congress, if I am confirmed. I recognize that the budget process 
is a long, complex one, that takes many months from the initial 
formulation of the President's Budget Request to the enactment of 
appropriations legislation; if I am confirmed, I would advocate 
throughout this process for USAID's work in the region, including 
programs to address the root causes of migration from Central America; 
support the people of Venezuela, Cuba, and Nicaragua; counter 
transnational criminal organizations and their criminal enterprises, 
including in narcotics and illicit mining in places like Colombia; 
promote economic growth and citizen security; and push back against the 
rise of malign external actors in the region.

    Question 2.  Will you work to defend USAID's mission, and the 
importance of U.S. international development to the achievement of U.S. 
foreign policy goals through the interagency process and the 
development of the annual budget request process?

    Answer. Yes.

    Question 3.  Will you commit to being responsive and transparent 
with all requests for information that come from the Senate Foreign 
Relations committee and its members?

    Answer. Yes.

    Question 4.  If confirmed, how will you approach your relationship 
as Assistant Administrator with Congress?

    Answer. Having served in both branches of government, I believe the 
relationship between the U.S. Agency for International Development 
(USAID) and the Congress is a critical one. I believe this not only 
because of Congress' responsibility to conduct appropriate oversight, 
and because it holds the power of the purse, but also because I believe 
that the only way the United States can address the challenges in the 
region adequately--from migration from Central America to the crisis in 
Venezuela and its neighbors--is if the Executive and Legislative 
Branches work collaboratively, and in partnership, to advance U.S. 
national security. To that end, I commit to providing you timely 
information, both proactively and when requested, both personally and 
on behalf of the team that I would lead, if I am confirmed.

    Question 5.  Will you commit to keeping the USAID missions in Latin 
America and the Caribbean regularly apprised of the functional, 
programmatic, and workflow changes that will result from Admin. Green's 
proposed redesign of the Agency?

    Answer. Yes. I look forward to supporting Administrator Mark 
Green's Transformation. Administrator Green has stated that the 
Transformation will make the structure of the U.S. Agency for 
International Development (USAID) more field-focused, and allow the 
Agency's staff to respond better to the challenges they face in the 
field. As USAID's mission rightly focuses on the Agency's work in the 
field, it would be a critical piece of my role, if I am confirmed, to 
help the Bureau for Latin America and the Caribbean work with USAID's 
Foreign Service Officers and locally employed staff in our Missions in 
the region to implement the Transformation, which would include 
ensuring they receive regular updates on functional, programmatic, and 
workflow changes that will occur in Washington.
Temporary Protected Status (TPS)
        In the past year, the administration terminated Temporary 
        Protected Status (TPS) for El Salvadorans, Hondurans, 
        Nicaraguans and Haitians. While a judge has issued a temporary 
        stay on the termination, the fact remains that these countries 
        are not fully prepared to take back the hundreds of thousands 
        of TPS beneficiaries or the U.S. citizen children that will be 
        travelling with them.

    Question 6.  Do you believe the U.S. has a responsibility to assist 
TPS returnees or host country governments that will be accepting TPS 
returnees, and to responsibly manage individuals' return?

    Answer. I understand that the U.S. Agency for International 
Development (USAID) currently assists countries in the Northern 
Triangle of Central America with the reception and repatriation of 
returned migrants, including longer-term efforts to help those who are 
returning readjust and, ultimately, stay in their home countries. The 
potential return and assimilation of larger populations whose Temporary 
Protected Status (TPS) has expired poses a greater challenge to host 
governments. I believe USAID should assist host countries with this 
potential challenge as much as resources will allow. If confirmed, I 
would look to understand how USAID's programs can best support this and 
other development challenges in the region.

    Question 7.  Will you work to ensure that USAID helps to build 
local capacity so that countries can safely repatriate their citizens?

    Answer. Yes. If I am confirmed to this position, it would be my 
responsibility to work to ensure all of the programs funded by the U.S. 
Agency for International Development (USAID) are responsive to all 
changing circumstances, including returns and reintegration, such as 
those that could result from changes to Temporary Protected Status 
(TPS). I understand that the Bureau for Latin America and the Caribbean 
within USAID has supported efforts to look at best practices across the 
region related to the repatriation of returnees, including in Ecuador, 
Mexico, Colombia, and Peru, to build upon lessons learned for any work 
that takes place as the United States repatriates people who have held 
TPS to their home countries.

    Question 8.  What specific role do you believe USAID should play in 
countries that the administration is intent on ending Temporary 
Protected Status (TPS) for foreigners residing in the US?

    Answer. While I do not want to presuppose the outcome of some of 
the thinking that the Bureau for Latin America and the Caribbean within 
the U.S. Agency for International Development (USAID) has undertaken 
prior to my nomination, I believe the Agency has the knowledge and the 
relationships to support reintegration, and to end recidivism. While 
the Governments of the countries in Central America must lead such 
efforts, I do believe USAID can, and should, share the lessons from its 
examination of the effectiveness of existing reintegration efforts. One 
key factor will be the specific demographics of the population that 
ultimately returns; some could bring desperately needed skills and 
knowledge back to their home countries to advance economic prosperity, 
while at the same time, being perilously susceptible to extortion. If 
confirmed, I would ensure USAID's programs respond adequately to these 
unique challenges. I am also aware of the Government Accountability 
Office's recent report that examined reintegration efforts in Central 
America; while the report does not have any specific recommendations 
for USAID, it offers insights into best practices. If I am confirmed, I 
would seek to implement the findings of this report that relate to 
USAID's programs.

    Question 9.  What is USAID's strategy for assisting individuals 
whose TPS status is ending acclimate and avoid victimization upon 
returning to their home countries?

    Answer. As stated above, I am concerned that some of the 
individuals who could return following the determinations of the U.S. 
Department of Homeland Security to terminate Temporary Protected Status 
(TPS) could be particularly at risk for victimization once they 
resettle in their home countries. At the moment, I understand that 
while there is not a formal strategy for tackling this challenge, in 
part because we do not yet know who will ultimately return to their 
home countries as a result of the TPS determinations, I do know that 
the U.S. Agency for International Development (USAID) has been 
reviewing its own past and current efforts related to reintegration, as 
well as those of other donors and host countries. It is self-evident 
that the programs funded by the Bureau for Latin America and the 
Caribbean within USAID can only succeed if they are able to respond to 
new developments in the operating environment, whether in response to a 
crisis, a change in country context, or relevant policy decisions. If I 
am confirmed, I would like to work closely with you and your staff to 
ensure we can apply the appropriate kinds of programs that can address 
this, and other dynamics related to the reintegration of returnees, in 
Central America.

    Question 10.  What do you believe should happen with families where 
the parents are TPS recipients, and their children were born in the 
United States?

    Answer. Decisions related to Temporary Protected Status (TPS) are 
the responsibility of the Secretary of Homeland Security. I believe the 
role of the U.S. Agency for International Development (USAID) in 
Central America can be to assist individuals who return to their home 
countries and the communities that are receiving them with any 
development-related challenges they face. If I am confirmed to lead the 
Bureau for Latin America and the Caribbean within USAID, I would seek 
to ensure USAID's programs do the best they can to support these 
countries, and their people, by advancing their economic prosperity and 
security.

    Question 11.  Do you believe TPS status should be ended for 
Haitians?

    Answer. The decision to terminate Temporary Protected Status for 
Haitians made by then-Acting Secretary of Homeland Security Elaine Duke 
factored in inputs from throughout theU.S. Government, and from 
external sources as well. My staff at the Office of Partnership and 
Engagement within the U.S. Department of Homeland Security and I met 
with some stakeholders regarding this issue, and did pass along 
information to assist in the decision-making process. However, by no 
means have I been exposed to the totality of inputs available to then-
Acting Secretary Duke when she made the determination.
Venezuela's Manmade Humanitarian Catastrophe
        Venezuela's manmade humanitarian catastrophe has unleashed a 
        refugee and migration crisis that is swiftly approaching the 
        scale of the Syrian migration crisis that has engulfed Europe 
        in recent years.

    Question 12.  If confirmed, do you commit to working with me and 
other members of this committee on legislation to strengthen U.S. 
efforts to address the growing crisis in Venezuela?

    Answer. Yes. I have sincerely appreciated the leadership of the 
Congress, in particular the Senate Committee on Foreign Relations, 
which has ensured that the United States, and the world, remained 
focused on the tragic, man-made crisis in Venezuela, which is straining 
its neighbors, including Colombia, Brazil, Ecuador, Peru, and Trinidad 
and Tobago, among others. While I have not yet reviewed the Venezuela 
Humanitarian, Relief, Reconstruction, and Rule of Law Act in full, I 
support the objectives of doing all we can to support the humanitarian 
needs and the democratic aspirations of the Venezuelan people, and, if 
confirmed, I look forward to working with you on any current or future 
legislation on Venezuela.

    Question 13.  How do you think the U.S. can strengthen its response 
to Venezuela's growing humanitarian crisis? Should the U.S. be hosting 
a donors conference to galvanize greater global funding for this 
challenge?

    Answer. I have been impressed and heartened by response to the 
Venezuela crisis by the U.S. Agency for International Development 
(USAID), which I understand includes over $140 million in humanitarian 
and development assistance provided to Venezuelans who have fled the 
tyranny and chaos in their country, and to the communities that are 
hosting them in neighboring countries. Yet it is clear that no amount 
of U.S. assistance will be sufficient to address the needs of the 
Venezuelan people, which grow worse by the because of the actions--and 
inaction--of the Maduro regime. If I am confirmed, I commit to you that 
I would do all in my power to galvanize global attention to the 
challenge, as well as global action, including funding. I would also 
undertake a detailed look at the assistance that USAID and the U.S. 
Department of State have provided to date; given how quickly the 
situation can change, I would ensure we are responding where the 
Agency's assistance can be of most help.
USAID
        Given the absence of democracy in Cuba, Venezuela and 
        Nicaragua, and the human rights violations faced by citizens of 
        all three countries, it is critical that USAID maintain its 
        vital support for democratic civil society and human rights 
        defenders.

    Question 14.  If confirmed, do you commit to aggressively fight to 
ensure that USAID does not cut funding to these essential programs?

    Answer. Yes. I believe programs in democracy and governance, 
particularly support for civil society and defenders of human rights, 
are a core part of the mission of the U.S. Agency for International 
Development (USAID), and they will certainly be a priority of mine if I 
am confirmed to this position. I understand such programs are, in some 
of these cases, a critical lifeline to civil-society organizations that 
are on the front lines of pushing back against government repression, 
and, in other cases, are a major reason the international community 
even understands what is taking place within these countries. If 
confirmed, I would look forward to working with you and the committee 
on how USAID can continue to support the people of Cuba, Venezuela, and 
Nicaragua.

    Question 15.  If confirmed, what strategies will you pursue in 
order to support democratic civil society in Cuba, Venezuela and 
Nicaragua, and help them strengthen efforts to defend basic human 
rights and fundamental freedoms in these countries?

    Answer. As I noted in my written testimony, Cuba, Nicaragua, and 
Venezuela stand out in the region as countries with leadership who does 
not care for human rights, the rule of law, or the betterment of their 
own people. I pledge that, if I am confirmed, I would build upon the 
current activities of the U.S. Agency for International Development 
(USAID) to further the cause of freedom in these countries. I believe a 
lack of accountability is the greatest challenge to democracy and 
citizen-responsive governance in the world, and, if confirmed I, would 
seek to ensure that USAID's programs are promoting accountability. 
Whether it be supporting independent media to shed light on the actions 
of the Ortega regime in Nicaragua, or providing training and capacity-
building support to civil-society organizations that continue to 
operate in Maduro's Venezuela, USAID's role is undeniable. If 
confirmed, I would review USAID's current portfolio in each of these 
countries to ensure the Agency is doing all it can to support those who 
are advancing human rights and freedom.
Colombia
        The U.S. Congress has appropriated more than $11 billion to 
        Colombia over the last 18 years, demonstrating an unwavering 
        bipartisan commitment across numerous presidencies. Today, 
        Colombia is working through the difficulties of implementing 
        its peace agreement. Given the complexities of the accord and 
        the ongoing problems faced in different geographic regions of 
        the country, it is essential for the U.S. to remain engaged so 
        that we can help Colombia win the peace. To that end,

    Question 16.  What priorities would you have for engaging Colombia?

    Answer. If I am confirmed, my main priority in Colombia would be 
addressing the production of coca, as the flow of cocaine into the 
United States is an acute threat to our national security. While the 
production of coca might, at times, increase or decrease for many 
reasons, I believe the alternative-development investments made by the 
U.S. Agency for International Development (USAID) are a key piece of an 
ongoing interagency effort. However, alternative development will not 
succeed if conducted in a vacuum; we simultaneously need improvements 
in the governance of previously ungoverned spaces. Accordingly, working 
to improve the efficacy of local governments, and the capacity of local 
civil society to promote citizen-responsive governance, would be 
another priority. Finally, Colombia is suffering severely because of 
the crisis in neighboring Venezuela, as it is graciously hosting over a 
million refugees. I am not optimistic that the Venezuela crisis will 
end any time soon, as the Maduro regime has shown little sign that is 
is willing to, or capable of, undertaking the reforms and other actions 
necessary to improve the lives of the people of Venezuela. As such, if 
confirmed, I would seek a clearer understanding of Colombia's immediate 
needs in communities most affected by the crisis. It is clear we will 
only succeed in these areas if we do our work in close collaboration 
with the Government of Colombia. I appreciate the efforts that USAID 
Administrator Mark Green has undertaken to date to engage with the 
administration of President Duque, and, if confirmed, I would commit to 
building on these ties.

    Question 17.  How would you support peace accord implementation?

    Answer. The programs in Colombia funded by the U.S. Agency for 
International Development (USAID) have been working to address the main 
drivers of the 50-year conflict, and are currently supporting four 
pillars of the implementation of the peace accord: Promoting equitable 
and sustainable rural development, ending the conflict, addressing 
illicit drugs, and supporting the victims of the conflict. While we all 
hope that the accords signed in 2016 can maintain the peace, successful 
implementation clearly brings its own challenges. I know USAID will 
continue to work to promote alternative development so farmers have a 
pathway to licit economic self-sufficiency. But alternative development 
on its own is not a panacea, and so I believe USAID will need to 
continue to work with interagency partners--including the U.S. 
Department of State and the Drug Enforcement Administration within the 
U.S. Department of Justice--to address the interlocking set of issues 
that allow coca and transnational criminal organizations to operate. 
Partnership with the private sector is also critical, as local 
producers need to be connected with regional, national, and 
international markets. If confirmed, I would look forward to engaging 
with the private sector to see how best we can continue these efforts. 
Additionally, improving citizen-responsive governance in rural areas 
that have lacked state presence will remain critical, so these 
transnational criminal organizations do not have the space in which to 
operate. More specifically, I believe this entails working to increase 
the resources available at the local level for public investment, and 
strengthening local government's capabilities to deliver services and 
perform other necessary functions.

    Question 18.  In a world of limited resources and competing 
priorities, how would you ensure that USAID has sufficient resources to 
carry out its important mission?

    Answer. I am fully cognizant that the U.S. Agency for International 
Development (USAID) has limited resources, which underlies my 
commitment to be a good steward of the taxpayer resources Congress 
generously provides the Agency. I view this as a sacred trust, and so I 
would always be working with the Bureau for Latin America and the 
Caribbean within USAID, the Agency's leadership, and the U.S. 
Government interagency to make sure USAID's priorities are sound and 
the Agency has the appropriate resources. I am concerned that if the 
situation in Venezuela continues to worsen--which I believe it will--
that the burden on neighboring countries, in particular Colombia, will 
continue to grow. However, I think it is critical that USAID not lose 
its focus on the development needs of Colombia related to reducing the 
production of coca and countering the influence of transnational 
criminal organizations, while still supporting the Government of 
Colombia and the communities that are hosting Venezuelan migrants. As 
this situation is fluid, I would expect regular updates from USAID's 
staff who are on the ground to ensure the Agency's efforts focus in the 
places they are most needed. If confirmed, I would be a vocal advocate 
within the administration's budget process for sufficient resources to 
address all of these challenges.

    Question 19.  Over the last two decades, waves of violence in 
Colombia have targeted human rights defenders, journalists, labor 
leaders, and most recently social activists and community leaders. How 
can USAID best support these important leaders in Colombia?

    Answer. Support for human rights, including those who dedicate 
their lives to advancing and defending such rights for others, is a 
critical component of the work of the U.S. Agency for International 
Development (USAID). I am very concerned by the targeting of human-
rights defenders, community leaders, and other members of Colombian 
civil society, particularly in rural areas. USAID has been working to 
support those organizations and individuals by investigating abuses and 
strengthening the ability of citizens to voice their complaints and 
concerns. The Venezuela crisis has added an additional dynamic to this 
challenge, and I understand USAID has provided new assistance to 
support community defenders, and to assist victims of human-rights 
violations along the Colombia-Venezuela border. I understand the Offic 
EOP the Attorney General of the Government of Colombia and the Office 
of the United Nations High Commissioner for Human Rights track 
statistics on attacks on human-rights defenders; if confirmed, I would 
closely study these data, and work with the USAID Mission in Colombia 
and staff in the Bureau for Latin America and the Caribbean in 
Washington to see how the Agency's programs can respond best to these 
troubling cases.
Democracy
    Question 20.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My work as a staffer in office of Representative Lincoln 
D!az-Balart afforded me the opportunity to play a role in the passage 
of the LIBERTAD Act and other Congressional actions that helped further 
the causes of democracy and human rights. I believe the passage of 
legislation such as the LIBERTAD Act and other actions that the 
Congress can take are critical ways both to demonstrate to civil 
society and the people of countries under repression that the United 
States stands with them, and to promote policies that can aid them in 
their efforts. Most recently, in the U.S. Department of Homeland 
Security, I have lead the team that has been managing the ``Blue 
Campaign'' to bring awareness to the scourge of human trafficking. The 
``Blue Campaign'' has helped increase both the knowledge and 
recognition of the signs of human trafficking. This has had the direct 
impact of lessening opportunities for this horrific practice to go 
unnoticed, or unpunished. If confirmed, I would be committed to 
promoting human rights and democracy in Latin America and the Caribbean 
because democracy underpins all of USAID's work.

    Question 21.  What issues are the most pressing challenges to 
democracy or democratic development in Latin America? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. I believe the greatest challenge to democracy and 
democratic development around the globe is the lack of accountability. 
The greatest impediments to accountability are corruption and impunity. 
I firmly believe that sunlight is the greatest disinfectant. Believing 
this, while others see the increase in prosecutions for corruption in 
the Western Hemisphere and worldwide as a negative development, I do 
not think this is necessarily the case. I think this trend is a 
positive development in that actions that have hitherto gone unnoticed 
are coming into the light of day, and individuals who once could count 
upon darkness to mask their actions are now being exposed and held 
accountable.

    Question 22.  What steps will you take--if confirmed--to support 
democracy in Latin America? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. If confirmed, I would hope to enable the people in Latin 
America and the Caribbean to demand accountable, effective, citizen-
responsive governance by supporting them directly, by working with 
like-minded Ministries and other governmental institutions to improve 
their capacity to govern justly and democratically, and by supporting 
those organizations and institutions that demonstrate their commitment 
to those ideas. Unfortunately, we see too much endemic corruption, 
economic mismanagement, and political repression in countries such as 
Venezuela and Nicaragua, which is driving regional instability. I 
believe the advent of modern technology to capture and share 
information widely is something we should welcome and expand, and, if 
confirmed, I would look into how our programs can incorporate use of 
such technology better. These are the tools for independent journalists 
and others to let individuals know how the wicked seek to take 
advantage of them and rob them of their human rights and ability to 
self-govern.
    I share the concerns you expressed at my nomination hearing, that 
the region is seeing a tragic backsliding in democracy and citizen-
responsive governance. This goes beyond the overt cases of repression 
in countries such as Cuba, Nicaragua, and Venezuela, to undemocratic 
actions undertaken by other governments in the region.
    I am deeply concerned by corruption and the culture of impunity 
that have contributed to this backsliding. Beyond this, I am concerned 
by the lack of capacity on the part of the governmental institutions 
that must be stewards of the trust and resources of a country's 
citizens. If confirmed, I would look forward to seeing how the programs 
of the U.S. Agency for International Development in the region can 
address these, and other, challengesin the most-effective way possible.

    Question 23.  How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I would be committed to using U.S. Government 
resources available to implement the Mission Statement of the U.S. 
Agency for International Development (USAID), which includes an 
explicit commitment to strengthening citizen-responsive, democratic 
governance abroad. I admire the effort and assistance that USAID 
Administrator Mark Green has marshalled to support democracy and 
governance in Latin America and the Caribbean (LAC). The LAC Bureau at 
USAID has been working to address the core components of democracy and 
citizen-responsive governance throughout the region; if confirmed, I 
would continue these important efforts. In particular, in light of the 
crises caused by oppression in countries such as Venezuela, Cuba, and 
Nicaragua, I would prioritize ensuring that USAID's assistance remain a 
critical lifeline to civil society. Speaking at the Center for 
Strategic and International Studies Administrator Mark Green correctly 
stated that ``[W]e refuse to be spectators.'' If confirmed, I would 
join him in this pledge.

    Question 24.  If confirmed, do you commit to meet with civil 
society members, human rights and other non-governmental organizations 
in the U.S. and with local human rights NGOs, and other members of 
civil society in the region? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Yes. If confirmed, I would commit to meeting with members 
of civil society and human-rights organizations both in Washington, 
D.C.. and during my travels to Latin America and the Caribbean. If 
confirmed, it would be my honor to stand alongside civil society, 
human-rights leaders, and those who are fighting for the rule of law, 
not only by meeting with them, but also by using all other tools at my 
disposal to support them. While we all understandably focus on high-
profile instances in which some governments seek to eliminate civil 
society outright, I agree that it is critical that we recognize that 
some governments employ far-more subtle tools to restrict civil 
society. Unfortunately, we are too familiar with the tactics that some 
governments in Latin America and the Caribbean employ to restrict, or 
outright eliminate, civil society. Whether it is monitoring the human-
rights situation in Colombia to contribute to protecting targeted 
human-rights defenders, working with civil society to seek to improve 
the effectiveness of justiciable systems in Central America to be more-
responsive to the needs of their citizens, or providing a rapid-
assistance grant to the groups on the front lines of the Nicaragua 
crisis this year, I believe the U.S. Agency for International 
Development (USAID) can play a role in supporting these groups and 
their efforts. If confirmed, I would plan to examine USAID's current 
programs to look for areas in which additional support could be needed 
because of the crises in the Hemisphere. In addition, I believe the 
position for which the President has nominated me can help give voice 
to civil society and organizations under threat, which can, in and of 
itself, support them in their efforts to bring attention to the need to 
combat malign influences that seek to stymie their critical work.

    Question 25.  If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes. If confirmed, I would commit to meeting with 
democratically oriented political figures and parties, both in 
Washington, D.C., and during my travel abroad.
    I understand the U.S. Agency for International Development (USAID) 
has been working on political competition in the region for some time. 
However, it is clear that challenges remain. Even in countries that 
have experienced more-genuine political competition, a controversial 
election, such as that in Honduras in 2017, can quickly undermine any 
progress, as it can undermine the people's trust in the system, which 
can lead to violence or migration. I believe that USAID's assistance to 
encourage political competition can be successful if we can cultivate 
partners who respect the rule of law and other basic tenents of 
citizen-responsive governance. True partners in this respect do not 
engage in any acts of corruption. There are some areas of promise in 
the region. For example, in Ecuador, I am heartened by the actions of 
the Moreno administration, and
    I understand USAID has been working to help ensure continued 
increased transparency and open political participation there. If I am 
confirmed, and if this positive trajectory continues, I would look 
forward to learning more about these efforts, continuing the 
partnership, and examining how to replicate these efforts elsewhere in 
the region. Finally, if confirmed, I would certainly advocate for 
access and inclusivity for women, minorities, and youth within 
political parties.

    Question 26.  Will you and your embassy team actively engage with 
Latin American countries on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in the region?

    Answer. Yes. If confirmed, I would actively support freedom of the 
press with whatever means at my disposal, including through the 
programs in Latin America and the Caribbean (LAC) funded by the U.S. 
Agency for International Development (USAID). I also would commit to 
meeting regularly with independent, local media when traveling abroad. 
It is my view that the occupant of the position to which the President 
has nominated me has a moral responsibility to speak to the people of 
the LAC region, and to understand their concerns and views about their 
countries' development. I believe this necessitates regular engagement 
with independent, local press. While there are many reasons that I 
might travel in this position, if confirmed, one such reason would be 
to engage with the press for this purpose. I am also cognizant that are 
some countries to which it might be difficult for me to travel if I am 
confirmed, and often it is in those countries in which independent 
media is especially under attack. Accordingly, I would look forward to 
hosting them and meeting with them when they are able to travel to the 
United States, or through virtual means.

    Question 27.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
region?

    Answer. Yes. I believe the unrestricted flow of accurate 
information, free of political propaganda, is fundamental to a strong 
civil society and a stable, democratic nation. Latin America and the 
Caribbean (LAC) certainly faces a range of challenges to independent 
media, which range from a lack of capacity to intentional and blatant 
efforts to undermine it, including through disinformation or the direct 
targeting of independent media outlets. I am heartened by the efforts 
to date by the U.S. Agency for International Development (USAID) to 
address this challenge in even the most-difficult of environments, 
including the Agency's additional assistance in response to the crisis 
in Nicaragua, which has included funding for independent media, which I 
hope can continue to counter the disinformation and propaganda of the 
Ortega regime.
    In addition, I am concerned by increased activity in the LAC region 
by malign external actors, including the People's Republic of China. If 
confirmed, I would ask USAID's Missions in the region to be aware of 
any instances in which external actors are spreading disinformation to 
further their own objectives, as opposed to being true partners with 
the nations of the LAC region to advance their development.

    Question 28.  Will you and your embassy teams actively engage with 
Latin American countries on the right of labor groups to organize, 
including for independent trade unions?

    Answer. I support the rights of workers to organize. If confirmed, 
I would pledge to work with legitimate organizations that are working 
to defend the rights of workers throughout Latin America and the 
Caribbean.

    Question 29.  Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in the region, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Latin America? What specifically will you commit to do to help LGBTQ 
people in the region?

    Answer. Yes. Administrator Mark Green has been clear that inclusion 
is one of the core values of the U.S. Agency for International 
Development (USAID), and that non-discrimination toward beneficiaries 
is a basic principle of development. I believe all people--regardless 
of sexual orientation or gender identity--are born with equal rights we 
should defend and preserve. I believe this is an integral aspect of 
USAID's mission to promote and demonstrate democratic values abroad. If 
confirmed, I would do all that I can to ensure USAID's assistance 
supports the people of Latin America and the Caribbean (LAC) realize 
their human rights. While I believe this is a moral issue, I believe it 
is not just a moral issue. For example, I believe there are many 
reasons that individuals in the Northern Triangle of Central America 
choose to undertake the dangerous journey northwards. This can include 
sexual or gender-based violence, including violence directed at LGBTQ 
individuals or human-rights advocates who support them. I understand 
USAID is currently undertaking a substantial investment in the region 
to support civil-society organizations and human-rights defenders, 
including for members of the LGBTQ community, and I would look forward 
to learning more about the results of these efforts, and building upon 
them as appropriate.
Climate Change
    Question 30.  Do you believe that climate change is happening as a 
result of anthropogenic carbon emissions into the atmosphere?

    Answer. I believe climate change is taking place. While I do not 
personally have the scientific knowledge to determine the cause, I do 
understand there is a broad-based scientific consensus that emissions 
of carbon are a large part of the cause.

    Question 31.  Do you believe that climate change is a threat to 
food security and food production and the abundance of water resources 
in countries across Latin America and the Caribbean?

    Answer. Yes.

    Question 32.  According to NASA researchers, within the last decade 
Bolivia's Second largest lake, Lake Poopo, has dried up. What do you 
believe caused the (relatively) sudden disappearance of this centuries 
old lake happened due to natural variations in the Earth climate?

    Answer. While I am not familiar with the specifics of Lake Poopo, I 
understand analysts see climate change as a likely cause of the current 
status of the lake, as is diversion of water for mining and other 
purposes. Such ecological changes can have devastating impacts on local 
communities. While the U.S. Agency for International Development 
(USAID) is not currently working in Bolivia, I understand the Agency is 
working on biodiversity and conservation efforts in other countries in 
the region, including Brazil. If confirmed, I would look forward to 
examining the lessons USAID has learned to date from this work to see 
how we can assist such affected communities better.
China
    Question 33.  What is the U.S. strategy for combating China's 
influence in Latin America and the Caribbean?

    Answer. Administrator Mark Green of the U.S. Agency for 
International Development (USAID) has spoken eloquently about the 
dangers of the ``authoritarian approach'' to foreign assistance. In my 
view USAID's development approach in Latin America and the Caribbean 
contrasts greatly with that of other competing powers, and offers a 
clear alternative to our partner countries. USAID seeks to promote 
transformational change; help countries move away from dependence and 
toward self-reliance; promote transparency, strong and accountable 
institutions, and market-based, enterprise-led development. If 
confirmed, I would not shy away from the magnitude of this challenge, 
and would always look for ways to demonstrate better why partnership 
with USAID and the United States is in the best interest of the 
countries of the region.

    Question 34.  When USAID discusses its ``clear choice'' initiative 
in Latin America and the Caribbean what ``choices'' are in fact being 
given?

    Answer. At its most basic level, I believe the clear choice of 
America's development assistance and so-called development assistance 
from the People's Republic of China is that ours is a model of 
partnership, while China's is one of dependency. In general, support 
from the U.S. Agency for International Development to these countries 
is in the form of sustainable projects, developed collaboratively, 
intended to promote economic prosperity and citizen-responsive 
governance--all towards the greater end of helping these countries in 
their efforts to become more self-reliant. China's approach with these 
countries is to provide loans on unfair terms, in a manner that cannot 
fairly be called ``development,'' and that undermines self-reliance.

    Question 35.  What concrete examples, or planned projects, can you 
give that demonstrate either actual, or anticipated, success of the 
Clear Choice initiative in Latin American and the Caribbean?

    Answer. While I have not received a full briefing on the Clear 
Choice Initiative of the U.S. Agency for International Development 
(USAID), I believe efforts to support countries counter malign external 
influence could take many forms. I believe a part of the strategy of 
the People's Republic of China in Latin America and the Caribbean is to 
stymie or reverse transparency and governmental reforms, and that, as a 
result USAID's programs should continue to encourage such reforms--both 
by assisting those governments that are willing to undertake them, and 
by working with civil society so citizens are in a position to demand 
them. The more transparent these governments are, the more difficult it 
will be for China, other malign actors, or public officials who act in 
bad faith to get away with actions that undermine the well-being of 
these countries and the trust of the people. As a key part of China's 
approach has been to cultivate unsustainable debt for their so-called 
partners, I believe USAID's efforts that support appropriate fiscal 
management and domestic resource-mobilization provide a clear 
alternative, one that will better serve the economic needs and the 
Journey to Self-Reliance of countries in Latin America and the 
Caribbean.
Energy
    Question 36.  Do you believe it is in the best interest of the 
United States, and critical to countries' ``journey to self-reliance'' 
for the U.S. to help countries develop domestic energy production?

    Answer. Yes.

    Question 37.  Understanding that part of the U.S.'s Joint Strategic 
Plan is to enhance export markets for U.S. fossil fuels (like natural 
gas), how does helping developing countries build power generation 
capacity that relies on imported fuels improve a country's ``self-
reliance?''

    Answer. Energy is certainly part of a countries' development 
journey. While I do not have personal expertise on energy issues, I 
understand the Bureau for Latin America and the Caribbean (LAC) within 
the U.S. Agency for International Development (USAID) does have in-
house expertise on energy as a part of its Office of Regional 
Sustainable Development, and that USAID more broadly has energy 
expertise from its work in other regions. Energy-security is a part of 
the President's National Security Strategy and the ``Prosperity 
Pillar'' of the U.S. Strategy for Central America, and I do believe 
that functioning energy grids, access to affordable energy, and 
creating investment opportunity for U.S. businesses must be our goals 
as we support countries throughout the LAC region. If confirmed, I 
would work with USAID's experts to improve my personal understanding of 
the energy challenges faced by countries throughout the LAC region and 
determine where programs can support these countries in reaching this 
goal.
Food Security
    Question 38.  What policies do you believe are necessary to improve 
the food security of Central America's rural and underserved 
populations?

    Answer. Food-insecurity is one of the drivers of migration from 
Central America, and can be a particularly difficult development 
challenge, as it can entail volatility of food prices and a lack of 
political institutional capacity to undertake necessary reforms. I 
understand the U.S. Agency for International Development (USAID) is 
currently addressing this through the Feed the Future Initiative, 
specifically in Guatemala and Honduras, where food security is a 
particularly acute development challenge. It is critical that the 
Governments of these countries examine and address the specific needs 
in key geographic areas--such as the Western Highlands in Guatemala and 
the ``Dry Corridor'' in Honduras. I understand that, in light of the 
importance of policy decisions in shaping the opportunities for 
improved food security in the region, USAID is engaging the Governments 
of Guatemala and Honduras to encourage improved policies and investment 
in a number of areas, such as nutrition, food safety, agricultural-
extension services, and the management of water resources, among 
others.

    Question 39.  What role is food insecurity playing in countries of 
the Northern Triangle in terms of driving poverty and migration in the 
region?

    Answer. While it is clear that there are many root causes of 
migration within, and from, Central America, food-insecurity certainly 
counts among them. It is ultimately in the interest of the United 
States that the people of Central America remain healthy and prosperous 
in their home countries, and that goal is impossible without food 
security. For this reason, if confirmed, I would look forward to 
learning more about the current and past efforts of the U.S. Agency for 
International Development to address food security, including internal 
and external evaluations of this work, and to integrating lessons-
learned into the Agency's current and future programming.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                John Barsa by Senator Benjamin L. Cardin

Human Rights
    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My work as a staffer in the Office of Representative 
Lincoln D!az-Balart afforded me the opportunity to play a role in the 
passage of the LIBERTAD Act and other Congressional actions that helped 
further the causes of democracy and human rights. I believe the passage 
of legislation such as the LIBERTAD Act and other actions the Congress 
can take are critical ways both to demonstrate to civil society and the 
people of countries under repression that the United States stands with 
them, and to promote policies that can aid them in their efforts. Most 
recently, at the U.S. Department of Homeland Security, I have lead the 
team that is managing the ``Blue Campaign'' to bring awareness to the 
scourge of human trafficking. The ``Blue Campaign'' has helped increase 
both the knowledge and recognition of the signs of human trafficking, 
which has had the direct impact of lessening opportunities for this 
horrific practice to go unnoticed, or unpunished. If confirmed, I would 
be committed to promoting human rights and democracy in Latin America 
and the Caribbean, because democracy underpins all of work of the U.S. 
Agency for International Development.
Diversity
    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
USAID?

    Answer. As a manager, I have always taken great pride in empowering 
my team. In exercising this approach, I make no distinction between 
members of my team for reasons of race, age, sex, color, or creed. I do 
strongly believe that a diverse workforce makes a workplace stronger 
and more creative, which is critical as we seek innovative solutions to 
the development challenges that the region faces. This has always been 
my philosophy, and I am proud to have a tangible record of doing just 
this.

    Question 3.  What steps will you take to ensure each of the 
supervisors at USAID are fostering an environment that is diverse and 
inclusive?

    Answer. I believe a culture of inclusivity and diversity starts at 
the top, and, if confirmed, I would hold anyone who reports to me, 
including those who supervise others, to a high standard on many 
fronts, including by ensuring they are fostering an environment that is 
open, inclusive, and diverse. Straying from this course is not 
something I would tolerate, if confirmed.
Conflicts of Interest
    Question 4.  Do you commit to bring to the committee's attention 
(and the USAID Inspector General) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. Yes.

    Question 5.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.

    Question 6.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.
Western Hemisphere Issues
        Efforts to limit irregular migration from Central America's 
        Northern Triangle will be useless unless they target the root 
        causes of instability in those countries.

    Question 7.  If confirmed, how would you address the governance, 
human rights, economic, and security challenges that force Central 
Americans in Honduras, El Salvador, and Guatemala to flee home?

    Answer. I could not agree more that it is crucial that we focus our 
attention and efforts on targeting the root causes of migration in the 
countries of Central America. People make the decision to migrate for a 
variety of factors, and I believe that if U.S. Government programs are 
to succeed in addressing migration, we must understand what drives 
different people to make this decision. I understand the U.S. Agency 
for International Development (USAID) has been collecting data to do 
this, and the results suggest there are variations in the primary 
reasons for migration in different geographic areas. For example, in 
the economically impoverished Western Highlands of Guatemala, it is 
more often lack of prosperity and food-insecurity that are the primary 
drivers, while in parts of Honduras and El Salvador particularly 
plagued by gang violence it is understandably a lack of a sense of 
security that is more central in this calculus. Therefore, it is 
important that USAID continue to advance programs that address economic 
prosperity and the security of citizens, targeted to the appropriate 
communities.
    I also believe that these efforts will only succeed if the 
countries of the Northern Triangle continue to put resources towards 
their own development needs, as they have done under the Alliance for 
Prosperity. Finally, it is clear that corruption can undermine this 
entire effort, as citizens who have no faith in their government's 
ability to use public resources for public good, instead of their own 
gain, will be less likely to remain in their home communities. 
Accordingly, USAID programs that promote citizen-responsive governance 
are key to addressing the problem of illegal migration.
    The deteriorating situation in Venezuela is producing both a 
humanitarian, as well as a human rights, crisis. If confirmed:

    Question 8.  Would USAID work to provide humanitarian assistance in 
Venezuela, as well as for those leaving the country?I understand that 
to date the U.S. Agency for International Development (USAID) has 
provided over $140 million in humanitarian and development assistance 
for Venezuelans who have fled the repression and chaos in their 
country, as well as the communities in neighboring countries that are 
hosting them. Even if Maduro were to reverse his previous, public 
repudiations of U.S. assistance, it is clear that no amount of 
assistance can solve the ills that are plaguing Venezuela if the regime 
does not prioritize the needs and betterment of its citizens. While I 
understand that humanitarian assistance is the responsibility of 
USAID's Bureau of Democracy, Conflict, and Humanitarian Assistance, if 
confirmed, I would do all I can to ensure the appropriate assistance 
reaches those individuals and communities who need it most. In 
preparation for my confirmation hearing, I was heartened to learn of 
USAID's support for civil society inside Venezuela, including to 
improve the capacity of local organizations to be better-positioned to 
deliver needed humanitarian assistance, should circumstances permit.

    Question 9.  How would USAID support the courageous work of 
remaining democratic actors in Venezuela, including those in the 
democratically elected national assembly?

    Answer. I admire the efforts the U.S. Agency for International 
Development (USAID) has undertaken to date to support what remains of 
democratic civil society in Venezuela, which I understand totaled $9 
million in Fiscal Year 2017. I understand this work has focused on 
defending human rights; strengthening civil society, including to 
prepare is to be better-positioned to provide information to the 
international community on the humanitarian situation within Venezuela; 
partnering with the democratically elected National Assembly on 
improving its legislative effectiveness, even in the face of the 
unconstitutional actions taken by Maduro; supporting independent media; 
and promoting transparent electoral processes. If confirmed, I would 
look forward to working with the interagency and the Congress to build 
upon these efforts.
    Colombia's historic 2016 accords gives the nation an unprecedented 
opportunity to consolidate peace in the country and address many of the 
development challenges at the root of the decades old conflict.

    Question 10.  If confirmed, how would USAID work to support the 
Colombian Government in the implementation of the development 
stipulations and related aspects of the accord?

    Answer. The peace accords are bringing to an end an almost-
unprecedented 52-year conflict, which left approximately 220,000 dead, 
and displaced approximately five million people. Large amounts of the 
country have never been under the jurisdiction of the Government of 
Colombia, which leave this land and its inhabitants open to coercion at 
the hand of transnational criminal organizations. The programs in 
Colombia funded by the U.S. Agency for International Development 
(USAID) have long been working to address the main drivers of the 50-
year conflict, and are currently supporting four pillars of the 
implementation of the peace accord: Promoting equitable and sustainable 
rural development, ending the conflict, addressing illicit drugs, and 
supporting the victims of the conflict. While we all hope that the 
accord signed in 2016 can maintain the peace, successful implementation 
clearly brings its own challenges. Accordingly, I understand USAID will 
continue to work to promote alternative development so farmers have a 
pathway to licit economic growth. But alternative development on its 
own is not a panacea, and so USAID will need to continue to work with 
our interagency partners--including the U.S. Department of State and 
the Drug Enforcement Administration within the U.S. Department of 
Justice--to address the interlocking set of issues that allow coca-
producers and transnational criminal organizations to operate. 
Partnership with the private sector is also critical, as local 
producers need to be connected with regional, national, and 
international markets. If confirmed, I would look forward to engaging 
with the private sector to see how we could continue these efforts. 
Additionally, improving citizen-responsive governance in rural areas 
that have lacked state presence will remain critical, so transnational 
criminal organizations do not have the space in which to operate. More 
specifically, I believe this entails working to increase the resources 
available at the local level for public investment, and strengthening 
local government's capabilities to deliver services and perform other 
basic necessary functions.
    The crisis in Nicaragua is concerning and tragic. We are also 
hearing a renewed call for democratic reforms in the country that have 
not been seen at this level for years.

    Question 11.  If confirmed, how would you work to support 
democratic actors and their calls for reform in the country?

    Answer. Since April 2018, the Nicaraguan regime again reminded the 
world that it does not have the best interests of the people of 
Nicaragua at heart. I understand that, in response to the events in 
Nicaragua since April 2018, the U.S. Agency for International 
Development (USAID) is providing emergency assistance to independent 
journalists and media outlets, as well as other civil-society actors, 
including human-rights defenders. Such support will remain critical, as 
the Ortega regime continues to oppress its own people. If confirmed, I 
would work to ensure USAID continues to provide the support to the 
people of Nicaragua as they voice their desire for freedom and their 
civil rights. This could include support to independent media, human-
rights defenders, and the organizations that continue to constitute 
civil society, despite the efforts of the Ortega regime. If confirmed, 
I would look forward to working with the interagency, and with the 
Congress, to continue and build upon this support.
    The administration is imposing a range of restrictions on foreign 
assistance to several countries in the hemisphere. For example, the 
decision not to issue a waiver for several countries in the hemisphere 
under the Trafficking Victims Protection Act (TVPA) has the potential 
to greatly affect USAID's work. I understand the importance of these 
restrictions, but I am concerned that if not properly implemented these 
restrictions could hurt our ability to bring about positive changes, 
particularly in the areas of democracy, human rights, health, and 
education.

    Question 12  If confirmed, how would USAID work to continue its 
invaluable programming in these areas in places like Venezuela where 
the administration is continually tightening restrictions?

    Answer. I understand the U.S. Agency for International Development 
(USAID) does have programming in Venezuela, which is listed in Tier 3 
of the 2018 Trafficking in Persons Report produced by the U.S. 
Department of State.
    As you know, the governments of the countries listed in Tier 3 did 
not undertake an effort to meet even minimum standards for the 
elimination of trafficking in persons during the past year. I 
understand the administration continues to work on implementation of 
the November 29 Presidential Determination with Respect to the Efforts 
of Foreign Governments Regarding Trafficking in Persons. But I have not 
been a part of deliberations on this matter to date.
    Unfortunately, trafficking-in-persons is only one of the many areas 
in which the Government of Venezuela has failed to address the needs of 
its people. If confirmed, I would make it a priority to work to advance 
the democratic aspirations of the Venezuela people, and to support them 
in their human rights effort.
    I am concerned about continued democratic backsliding in the 
region, along with alarming reports of persecution of human rights 
defenders, journalists, and ethnic minorities throughout the 
hemisphere.

    Question 13.  If confirmed, how would adjust and enhance USAID 
efforts to counter these concerning trends?

    Answer. I share your concern about this backsliding. As observed 
during my confirmation hearing on December 4, this backsliding can take 
many forms, and ranges from the outright collapse of governance--and 
the economy--in Venezuela to more-nuanced efforts to undermine civil 
society, or to promote a culture of impunity by other governments in 
the region. Part of the Mission Statement of the U.S. Agency for 
International Development (USAID) is to ``promote and demonstrate 
democratic values.'' I believe the greatest challenge to democratic 
development in the world is a lack of accountability, and if confirmed, 
I would make finding ways to advance accountability my top priority. I 
believe the advent of modern technology to capture and share 
information widely is something we should welcome and expand. If 
confirmed, I would look forward to drawing on the expertise of the 
democracy and governance experts in the Bureau for Latin America and 
the Caribbean and the Center for Democracy, Human Rights, and 
Governance in the Bureau for Democracy, Conflict, and Humanitarian 
Assistance within USAID.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Sarah-Ann Lynch by Senator Robert Menendez

    Question 1. What is your assessment of the dispute between Guyana 
and Venezuela? To your knowledge, are there any other U.S. interests 
that could be affected by the Venezuelan Government's aggressive 
tactics?

    Answer. The United States supports the definitive resolution of the 
Venezuela-Guyana border controversy. The United States has called on 
all parties to respect the 1899 arbitration decision unless and until a 
competent legal body rules or both parties agree otherwise. While there 
are no indications that Venezuela intends to use force to assert its 
claims, resolution of the controversy will improve regional security 
and rule of law. If confirmed, I am committed to addressing this issue.

    Question 2. How is Guyana being affected by Venezuela's 
humanitarian crisis? What is the United States' role with regard to 
Venezuelan migrants in the region, including in Guyana?

    Answer. The Guyanese Government reports approximately 2,800 
Venezuelans are resident in Guyana and the United Nations estimates as 
many as 15,000 Venezuelans reside in Guyana. The number of Venezuelans 
in Guyana rises as Venezuela's economic and political crisis further 
deteriorates.
    Since FY 2017, the United States has provided nearly $97 million 
across the region in life-saving humanitarian assistance for 
Venezuelans who have fled their country, including shelter for the most 
vulnerable, safe drinking water and hygiene supplies, protection from 
violence and exploitation, and work and education opportunities, in 
coordination with other humanitarian organizations and relevant 
government authorities. Of that humanitarian assistance, the State 
Department's Bureau of Population, Refugees and Migration provided 
nearly $48 million, including $500,000 to UNICEF to provide education 
and child protection assistance for Venezuelans in Guyana.

    Question 3. If confirmed, what role do you think the U.S. Embassy 
can play as U.S. businesses participate in Guyana's discovery, 
exploration, and production efforts?

    Answer. The discovery of oil, with production coming online in 
early 2020, will transform Guyana's economy, which is poised to become 
one of the top 20 oil producers in the world.
    If confirmed, I will commit the U.S. Embassy in Georgetown to 
supporting our U.S.-Caribbean 2020 strategy, a regional initiative 
focused on enhancing engagement with our Caribbean neighbors on energy, 
security, prosperity, health and education. I will also commit to 
supporting the American Chamber of Commerce as a resource for U.S. 
businesses participating in the discovery, exploration, and production 
of petroleum in Guyana. The U.S. Government was instrumental in 
establishing the American Chamber of Commerce in Guyana in 2018 in 
light of growing U.S. commercial interest in the country.
    The U.S. Embassy is helping Guyana prepare for oil coming online 
within the rubric of the country's Green State Development Strategy, 
which aims to use the majority of the oil for export and use renewable 
sources of energy for domestic power and consumption. The U.S. 
Government has provided technical assistance to Guyana to create stable 
and transparent oversight of oil and gas projects that should bring 
economic growth. The U.S. Government has also assisted Guyana with 
becoming a member of the Extractive Industries Transparency Initiative 
(EITI), to ensure the country manages its resource wealth responsibly 
and transparently.

    Question 4. How can the U.S. support Guyana in its efforts to 
ensure that new potential revenues are used productively and contribute 
to inclusive economic growth in the country?

    Answer. If confirmed, I will commit to working closely with both 
the Guyanese Government and civic institutions to strengthen Guyana's 
ability to manage its resources responsibly. The U.S. Government has 
supported Guyana joining the Extractive Industries Transparency 
Initiative to ensure the country manages its resource wealth 
responsibly and transparently.
    The U.S. Government has shared our expertise to assist in the 
promulgation of an effective and transparent oil regulatory and legal 
regime. We have encouraged the establishment of a sovereign wealth fund 
that is independent, transparent, inviolable, and non-partisan. The 
U.S. Government has also provided technical assistance to Guyana in the 
areas of human resource management and regulatory structures.

    Question 5. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As the Senior Deputy Assistant Administrator for USAID's 
Bureau for Latin America and the Caribbean (LAC) and a career Foreign 
Service Officer, I have implemented and administered a large number of 
programs that have sought to build democratic institutions, support 
freedom of the press and good governance, and promote defense of human 
rights. These programs and activities have run the gamut from 
administration of justice/rule of law, to election monitoring, to civil 
liberties awareness trainings. Results of these efforts include the 
creation of a protection mechanism for journalists in Mexico, increased 
participation of marginalized populations (Afro-Colombians, indigenous 
populations, and women) in Colombia's peace efforts, and support to 
independent Venezuelan media outlets and civil society to shine the 
spotlight on corruption and gaps in governance in Venezuela. If 
confirmed, my commitment to supporting democracy and human rights 
around the world will continue to be steadfast and unwavering.

    Question 6. What issues are the most pressing challenges to 
democracy or democratic development in Guyana? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The Guyanese people demonstrated their commitment to 
democracy in May 2015, when a coalition of five parties narrowly won 
national elections, replacing the Indo-Guyanese-dominated People's 
Progressive Party Civic, which had governed the country since 1992.
    One of the challenges to democracy or democratic development in 
Guyana is corruption. Transparency International ranks Guyana 91 out of 
180 for perceptions of corruption, which saps economic growth, hinders 
development, destabilizes governments, and undermines democracy.
    Guyanese law protects freedom of expression and freedom of the 
press, which are guaranteed by the country's constitution. Penalties 
for defamation are found in both civil and criminal law, but public 
officials more commonly utilize civil defamation suits to stifle 
criticism in the media. While such suits are frequently unsuccessful, 
the threat of legal liability can be enough to silence journalists. 
Although physical harassment is rare or absent, government officials 
often refuse to give information to journalists affiliated with 
opposition media and instead limit their media contacts to state 
television outlets.

    Question 7. What steps will you take--if confirmed--to support 
democracy in Guyana? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will commit to sustained engagement with a 
broad spectrum of civil society in Guyana, including political parties, 
human rights activists, religious groups, and watchdog organizations. I 
will champion existing embassy programs designed to foster democracy 
and human rights. I will also engage directly with local leaders at all 
levels of society on resolving pressing democracy and human rights 
concerns.
    Guyana enjoys a strong and stable democracy but needs to take 
action to address corruption in sectors of the government and society. 
If confirmed, I will continue to support U.S. training to military and 
law enforcement personnel, prosecutors, government employees, and 
policymakers to build capacity and bolster democratic institutions in 
Guyana and the region. If confirmed, I will push back on government 
pressure on journalists that leads to self-censorship. I will advocate 
for freedom of the press, including passage of freedom of information 
legislation, as a key component of democratic governance. I will 
encourage the press to foster active debate, increase investigative 
reporting, and serve as a forum to express different points of view, 
particularly on behalf of those who are marginalized in society.

    Question 8. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will use available U.S. Government 
assistance to preserve and expand democratic practice and governance 
standards, including increasing the transparency, capacity, and citizen 
accountability of Guyana's Government during a potential period of 
economic transformation. My focus will be on the targeted and creative 
use of limited assistance resources to achieve these policy goals. I 
commit to working closely with all of our partners in Guyana, and all 
relevant agencies of the U.S. Government, to ensure every dollar of 
U.S. assistance is used wisely and in accordance with our human rights 
and democracy goals in the region.

    Question 9. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Guyana? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will commit to sustained engagement with a 
broad spectrum of civil society in Guyana, including human rights 
activists and religious groups. I will ensure the Department continues 
to vet thoroughly all individuals and units nominated to participate in 
U.S.-funded security assistance activities, in accordance with the 
Leahy law. If there are findings of credible information regarding 
gross violations of human rights, I will take the necessary steps in 
accordance with the law and Department policy to ensure those 
implicated do not participate in U.S.-funded assistance.
    If confirmed, I will engage with the Government to advocate for the 
continued open environment for NGOs and civil society groups to operate 
without unnecessary legal or regulatory restrictions. To the extent 
possible, I will urge that the perpetrators of gross violations of 
human rights be held accountable.

    Question 10. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. If confirmed, I commit to meet with all democratically 
oriented Guyanese political opposition figures and parties. In my 
interactions with Guyanese officials, I will emphasize the importance 
of a free, open, and fair political system as the basis to modern 
democracy. If confirmed, I will also advocate for the inclusion of 
underrepresented and historically marginalized groups, including women, 
minorities, and youth, in political parties.

    Question 11. Will you and your embassy team actively engage with 
Guyana on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Guyana?

    Answer. If confirmed, I will support freedom of the press in Guyana 
as an essential pillar of democracy. I will commit to advocating for 
the rights of journalists in the print, broadcast, and digital space. 
Guyana has well-developed print and broadcast media and, if confirmed, 
I will fully support the U.S. embassy's efforts to preserve and 
strengthen the capacity of journalists on all of these platforms, 
including training in investigative skills, transparency, 
accountability in reporting, and digital security. I will work closely 
with interagency colleagues and the international community to broaden 
resources for start-up outlets and established media organizations. If 
confirmed, I look forward to meeting regularly with independent and 
local press in Guyana to underscore my commitment to a free and well-
informed press.

    Question 12. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The Department of State is concerned by any efforts to 
disseminate disinformation and anti-U.S. propaganda in Guyana and the 
region. One of the best defenses against disinformation is a free and 
transparent news media environment. If confirmed, I, along with my 
Embassy team, will work to promote accurate messages about the United 
States and other nations in the pursuit of freedom, prosperity, and 
security in the Western Hemisphere. If confirmed, I would work to 
monitor and counter any such efforts in Guyana, including by 
encouraging digital media literacy, independent journalism, and 
supporting civic-tech groups and other local stakeholders to inform the 
public and stem the malign spread of disinformation.

    Question 13. Will you and your embassy teams actively engage with 
Guyana on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, my Embassy team and I will actively 
engage with Guyana on the right of Guyanese labor groups, including 
independent trade unions, to organize within Guyanese law.

    Question 14. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Guyana, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and intersex (LGBTI) people 
face in Guyana? What specifically will you commit to do to help LGBTI 
people in Guyana?

    Answer. Governments have an obligation to protect, respect, and 
uphold the dignity and fundamental freedoms of all people--including 
LGBTI persons. As the Universal Declaration of Human Rights states, all 
human beings are born free and equal in dignity and in rights. 
Advancing universal human rights is in our national interest, and as 
Secretary Pompeo has said, LGBTI persons deserve the same respect, 
freedoms, and protections as everyone else. LGBTI conduct is 
criminalized in Guyana, and LGBTI persons face widespread 
discrimination in education, employment, and health care. If confirmed, 
my country team and I would consult closely with LGBTI civil society 
and human rights defenders on how best to support them in their 
advocacy, including through capacity building programs. I would not shy 
away from speaking out publicly and privately in support of the rights 
of all. If confirmed, I will continue to urge the Guyanese Government 
to uphold and respect international human rights obligations and 
commitments.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Sarah-Ann Lynch by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As the Senior Deputy Assistant Administrator for USAID's 
Bureau for Latin America and the Caribbean (LAC) and a career Foreign 
Service Officer, I have implemented and administered a large number of 
programs that have sought to build democratic institutions, support 
freedom of the press and good governance, and promote defense of human 
rights. These programs and activities have run the gamut from 
administration of justice/rule of law, to election monitoring to, civil 
liberties awareness trainings. Results of these efforts include the 
creation of a protection mechanism for journalists in Mexico, increased 
participation of marginalized populations (Afro-Colombians, indigenous 
populations, and women) in Colombia's peace efforts, and support to 
independent Venezuelan media outlets and civil society to shine the 
spotlight on corruption and gaps in governance in Venezuela. If 
confirmed, my commitment to supporting democracy and human rights 
around the world will continue to be steadfast and unwavering.

    Question 2. What are the most pressing human rights issues in 
Guyana? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Guyana? What do you 
hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Guyana include 
harsh and potentially life-threatening prison conditions and laws that 
criminalize same-sex sexual activity, although they are not generally 
enforced.
    Additionally, Guyana continues to see human trafficking and some of 
the worst forms of child labor, including in mining and in commercial 
sexual exploitation. Law enforcement agencies have insufficient funding 
and capacity to consistently enforce laws related to human trafficking 
and child labor, including its worst forms, and existing laws do not 
fully prohibit using children in certain forms of child labor. Even 
when perpetrators are convicted, they have received light sentences 
that are not commensurate with the seriousness of the crime.
    If confirmed, I would champion existing embassy and U.S. Government 
programs designed to address these and other human rights issues. I 
will also use my platform as Ambassador to deliver public and private 
messages to the Guyanese people and the country's leadership to make 
clear the United States' expectations with regard to human rights 
protections as well as the measures we intend to take to address our 
concerns.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Guyana in advancing 
human rights, civil society and democracy in general?

    Answer. Guyana's challenge is to use its limited resources to 
promote respect for the rule of law while respecting human rights in a 
high-crime environment. Law enforcement agencies lack funds and 
capacity to enforce child labor laws, and the laws that exist do not 
fully prohibit child labor.
    If confirmed, I will work with my embassy staff to augment existing 
training programs for Guyanese justice-sector officials, while ensuring 
that Leahy vetting is properly conducted where applicable. I would 
champion existing embassy and U.S. Government programs designed to 
promote human rights in Guyana.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Guyana? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will prioritize support for human rights 
and civil society, and commit to meeting with non-governmental and 
other organizations in the United States and Guyana to demonstrate my 
support.
    Implementation of the Leahy Law serves the legal and policy goal of 
ensuring that the United States does not provide foreign assistance to 
individuals or units credibly implicated in gross human rights 
violations. If confirmed, I would work to ensure that my team is fully 
informed of and committed to all procedures required to implement the 
Leahy Law. I will engage with colleagues in Washington and throughout 
the interagency to ensure thorough implementation.

    Question 5. Will you and your embassy team actively engage with 
Guyana to address cases of key political prisoners or persons otherwise 
unjustly targeted by Guyana?

    Answer. The State Department's 2017 Human Rights Report states 
there were no political prisoners or detainees in Guyana in 2017. If 
confirmed, however, I will work actively with the embassy team to 
address any cases of political prisoners or persons unjustly targeted 
by government entities to ensure their rights and fundamental freedoms 
are respected.

    Question 6. Will you engage with Guyana on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with Guyana on matters of 
human rights, civil rights and governance.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise concerns that I may 
have through appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Guyana?

    Answer. My investment portfolio includes diversified mutual funds 
that may have investments in companies with a presence in Guyana; 
however, these funds are exempt from the conflicts of interest rules. I 
am committed to ensuring that my official actions will not give rise to 
a conflict of interest and I will remain vigilant with regard to my 
ethics obligations.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I look forward to leading the team of U.S. 
and Guyanese nationals at Embassy Georgetown and to tapping the unique 
and diverse talents each person brings to advance our bilateral 
relationship with Guyana and to promote U.S. foreign policy objectives. 
At the State Department's core are its people. The Department is 
committed to fostering a workforce that reflects the diverse people it 
represents. Diversity not only enhances our effectiveness but also 
promotes a workplace culture that values the efforts of all members and 
enhances the professional experience of our valued public servants. The 
Department's diversity efforts are outlined in its 2016 Diversity and 
Inclusion Strategic Plan. If confirmed, I will prioritize a variety of 
training opportunities, mentoring, and career development programs to 
ensure employees have the skills necessary for current and future work 
assignments.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The State Department is committed to equal employment 
opportunity (EEO) and to ensuring the Department's work environment is 
free from discrimination and harassment in all phases of employment--
including hiring, evaluation, promotion, and training. This includes 
improving and enhancing mentorship programs, expanding outreach to 
managers who make hiring decisions, and encouraging collaboration with 
external partners. If confirmed, I will communicate strongly the 
Department's EEO policies in my mission and ensure they are followed. I 
will also take advantage of the variety of programs the Department 
offers to help supervisors work with a multicultural staff.

    Question 12. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Guyana 
specifically?

    Answer. Corruption saps economic growth, hinders development, 
destabilizes governments, undermines democracy, and provides openings 
for dangerous groups like criminals, traffickers, and terrorists. The 
Department has made anti-corruption a national security priority and 
works across the globe to prevent graft, promote accountability, and 
empower reformers. Ranking 91 out of 180 on Transparency 
International's Corruption Perceptions Index, Guyana suffers many of 
the effects of political corruption and inconsistent enforcement. Anti-
corruption efforts will be particularly important given the recent 
discovery of petroleum reserves expected to bring rapid economic 
growth. If confirmed, I commit to addressing this issue.

    Question 13. What is your assessment of corruption trends in Guyana 
and efforts to address and reduce it by that government?

    Answer. According to Transparency International's Corruption 
Perception indices, Guyana has markedly increased transparency since 
2014, but the Government must do more to counter corruption. Guyana 
ratified the Inter-American Convention against Corruption, and bribery 
is established as a criminal offense under Guyanese law. Although the 
Government passed legislation in 1997 that requires public officials to 
disclose their assets to an Integrity Commission prior to assuming 
office, the Integrity Commission has not been constituted and remains 
inoperative. Public officials' compliance with the legislation is, 
therefore, uneven. If confirmed, I commit to addressing this issue.

    Question 14. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Guyana?

    Answer. If confirmed, I will encourage Guyana's Government to make 
anti-corruption a national security priority and work to prevent graft, 
promote accountability, and empower reformers. I will highlight and 
assist groups committed to tackling corruption through strengthening 
democratic institutions and empowering citizen advocates to hold the 
Government accountable for corruption. I will work with global partners 
to enhance law enforcement cooperation across borders, improve data 
sharing between major financial hubs, and develop tools to recover 
stolen assets.
    If confirmed, I will address corruption in the security arena, 
explaining how corruption threatens Guyana's national security; reduces 
trust in law enforcement; and diminishes its ability to protect its 
citizens, hold terrorists at bay, and defend national sovereignty.

    Question 15. If confirmed, how would you work to prevent the 
humanitarian and political crisis from impacting Guyana, while 
addressing the needs of those Venezuelans who are fleeing to Guyana?

    Answer. Guyana is a solid member of the Western Hemisphere's 
diplomatic consensus against the Maduro regime. If confirmed, I will 
continue to foster Guyana's efforts to support actions that enable 
Venezuelans themselves to forge the peaceful, democratic, and 
prosperous future they deserve in their home country. If confirmed, I 
will encourage Guyana to continue to coordinate with the international 
community to hold Venezuelan regime officials accountable for their 
actions, including supporting efforts at the Organization of American 
States, and to press the Maduro regime to accept international 
humanitarian assistance commensurate with needs. If confirmed, I will 
work with Guyana and other countries in the region to address the 
challenges posed by the exodus of Venezuelans from the Maduro regime.

    Question 16. Given the CARICOM secretariat's location in 
Georgetown, how would you plan to strategically engage with the broader 
Caribbean community if confirmed?

    Answer. Within the rubric of our U.S.-Caribbean 2020 strategy, 
engagement with CARICOM is essential to maintain regional cooperation 
and promote U.S. interests through engagement in the Caribbean on 
diplomacy, security, prosperity, health, education, and energy.
    If confirmed, I would leverage my role as the Secretary of State's 
representative to CARICOM to advocate for greater regional coordination 
and cooperation along these six Caribbean 2020 pillars.

                               __________


     Responses to Additional Questions for the Record Submitted to 
               Lynne M. Tracy by Senator Robert Menendez

    Question 1. Do you acknowledge that on May 24, 1915, the Allied 
Powers of England, France, and Russia jointly issued a statement 
explicitly charging for the first time ever another government of 
committing crimes ``against humanity and civilization''?

    Answer. Yes, I acknowledge this historical fact. I acknowledge and 
mourn the mass killings and forced deportations that devastated over 
one and a half million Armenians at the end of the Ottoman Empire. 
These events constituted one of the worst atrocities of the twentieth 
century.

    Question 2. Do you acknowledge that the United States Holocaust 
Memorial Council, an independent Federal agency, unanimously resolved 
on April 30, 1981, that the United States Holocaust Memorial Museum 
would document the Armenian Genocide in the Museum, and has done so 
through a public examination of the historic record?

    Answer. Yes, I acknowledge that fact. I recognize and deplore the 
mass killings and deportations of Armenians that occurred during the 
final years of the Ottoman Empire. I mourn the loss of so many innocent 
lives and fully respect that the Armenian people want their pain and 
loss to be acknowledged.

    Question 3. Do you acknowledge that Henry Morgenthau, the U.S. 
Ambassador to the Ottoman Empire at the time, said that the Turkish 
Government's deportation order for the Armenians was ``a death warrant 
to a whole race'' and an aim which ``they made no particular attempt to 
conceal'' in their discussions with him?

    Answer. Yes, I acknowledge that U.S. Ambassador Henry Morgenthau 
made those statements. The magnitude of these terrible acts--over 1.5 
million killed or forcibly deported--defies comprehension. I empathize 
with the great suffering experienced by the Armenian people during this 
dark chapter in their history.

    Question 4. If confirmed, do you commit to substantially engaging 
with the Armenian-American community over the course of your tenure?

    Answer. Yes, I commit to substantially engaging with the Armenian-
American community. I value the insights of the Armenian-American 
community and look forward to working with them to further strengthen 
U.S.-Armenian relations.

    Question 5. What are the prospects for the Minsk Process moving 
forward?

    Answer. As a Co-Chair of the Minsk Group, the United States plays 
an active role in helping the sides find a peaceful and comprehensive 
settlement of the longstanding Nagorno-Karabakh conflict, the 
resolution of which would usher in a new era of peace and prosperity 
for the people of the South Caucasus. The Minsk Group has continued to 
engage with the sides at the highest levels to promote dialogue in 
support of finding a peaceful and comprehensive settlement of the 
conflict. In July 2018, the Minsk Group Co-Chairs organized an 
introductory meeting in Brussels between Armenian Foreign Minister 
Mnatsakanyan and Azerbaijani Foreign Minister Mammadyarov. At that 
meeting, the foreign ministers exchanged views regarding the situation 
on the ground and discussed possible next steps and parameters for re-
engaging in substantive negotiations as well as possible confidence-
building measures. In September 2018, the two foreign ministers met 
again under the auspices of the Co-Chairs on the margins of the U.N. 
General Assembly in New York.
    Acting Armenian Foreign Minister Mnatsakanyan and Azerbaijani 
Foreign Minister Mammadyarov plan to meet this week under the auspices 
of the Co-Chairs on the margins of the OSCE Ministerial Council meeting 
in Milan, where the Co-Chairs will encourage them to reaffirm their 
commitment to work intensively toward a just and lasting peaceful 
settlement of the Nagorno-Karabakh conflict.
    Since Acting Prime Minister Pashinyan and President Aliyev met on 
the margins of the Commonwealth of Independent States summit in 
Dushanbe, Tajikistan, on September 27-28 and reached an understanding 
about the need to reduce tensions and uphold the ceasefire, the level 
of violence has fallen significantly. The Co-Chairs welcomed these 
developments, commended the sides for implementing constructive 
measures in good faith, and expressed their support for the leaders' 
continued high-level dialogue.

    Question 6. How can Azerbaijan and Russia be encouraged to play a 
more constructive role in the process?

    Answer. The U.S. Co-Chair cooperates with the Russian and French 
Co-Chairs of the OSCE Minsk Group to help the sides reach a peaceful 
and lasting settlement to the Nagorno-Karabakh conflict. Both Russia 
and France have consistently and publicly urged the parties to the 
conflict to demonstrate restraint and work toward a peaceful 
settlement. The United States continues to believe the Minsk Group 
format provides the best opportunity and the most trusted process for 
the sides to advance a settlement. U.S. policy remains clear: the only 
solution to this conflict is a negotiated settlement based on 
international law that includes adherence to the Helsinki Final Act 
principles of the non-use or threat of force, territorial integrity, 
and equal rights and self-determination of peoples.
    As the Co-Chairs of the OSCE Minsk Group, the United States, 
Russia, and France have repeatedly condemned the use of force along the 
Line of Contact, and called on all sides to take measures to reduce 
tensions and improve the atmosphere for negotiations. If confirmed, I 
will ensure the U.S. Embassy in Armenia continues to support the 
efforts of the OSCE Minsk Group to help the sides find a lasting 
solution to this conflict.

    Question 7. What is the level of Russian Federation Foreign 
Minister Lavrov's engagement on this process? What is the level of Sec. 
Pompeo's level of engagement?

    Answer. All three Minsk Group Co-Chairs are actively engaged--as 
are Secretary Pompeo and Foreign Minister Lavrov--in helping the sides 
find a peaceful and comprehensive settlement of this longstanding 
conflict. Acting Armenian Foreign Minister Mnatsakanyan and Azerbaijani 
Foreign Minister Mammadyarov plan to meet this week under the auspices 
of the Co-Chairs on the margins of the OSCE Ministerial Council meeting 
in Milan, where the Co-Chairs will encourage them to reaffirm their 
commitment to work intensively toward a just and lasting peaceful 
settlement of the Nagorno-Karabakh conflict.

    Question 8. Given Azerbaijan's ongoing cease-fire violations, what 
steps is the United States taking to hold Azerbaijan accountable?

    Answer. If confirmed, I will ensure the Department of State 
continues to support the efforts of the OSCE Minsk Group to help the 
sides find a lasting solution to the Nagorno-Karabakh conflict, and to 
ensure the implementation of concrete measures to reduce tensions and 
increase effective monitoring along the Line of Contact and the 
Armenia-Azerbaijan international border. The United States strongly 
condemns the use of force and regrets the loss of life that has 
occurred along the Line of Contact. Such incidents are an unacceptable 
violation of the 1994 ceasefire agreement. We have frequently, publicly 
and privately, called upon both sides to refrain from the use of force 
or the threat of force. Such incidents only harm the peace process. If 
confirmed as Ambassador, I will support our U.S. Co-Chair, Andrew 
Schofer, in his efforts to help achieve a peaceful resolution to the 
Nagorno-Karabakh conflict.
    Since Acting Prime Minister Pashinyan and President Aliyev met on 
the margins of the Commonwealth of Independent States summit in 
Dushanbe, Tajikistan, on September 27-28 and reached an understanding 
about the need to reduce tensions and uphold the ceasefire, the level 
of violence has fallen significantly. The Co-Chairs welcomed these 
developments, commended the sides for implementing constructive 
measures in good faith, and expressed their support for the leaders' 
continued high-level dialogue.

    Question 9. What steps is the United States taking to ensure the 
implementation of enhanced border monitoring as well as the deployment 
of more monitors along the line of contact?

    Answer. As a Co-Chair of the Minsk Group, the United States has 
played and continues to play an active role in mediating a 
comprehensive, peaceful settlement of this longstanding conflict, the 
resolution of which would usher in a new era of peace and prosperity 
for the people of the South Caucasus.
    The United States supports proposals to withdraw snipers, launch an 
OSCE investigation mechanism, and deploy sensors along the Line of 
Contact and the Armenia-Azerbaijan international border. The United 
States has been a strong advocate in the Minsk Group process for these 
and other confidence-building measures, which we believe would further 
reduce violence in areas affected by the conflict.
    Since Acting Prime Minister Pashinyan and President Aliyev met on 
the margins of the Commonwealth of Independent States summit in 
Dushanbe, Tajikistan, on September 27-28 and reached an understanding 
about the need to reduce tensions and uphold the ceasefire, the level 
of violence has fallen significantly. The Co-Chairs welcomed these 
developments, commended the sides for implementing constructive 
measures in good faith, and expressed their support for the leaders' 
continued high-level dialogue.
    If confirmed, I will support initiatives by the sides, the Co-
Chairs, and others, which have the potential to further strengthen the 
ceasefire, reduce violence, and sustain a climate of trust for 
intensive negotiations on a peaceful settlement the conflict.

    Question 10. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career--in Russia, Turkmenistan, Pakistan, 
Kazakhstan, Afghanistan, and elsewhere--I have worked to promote 
democracy and human rights. As Deputy Chief of Mission in Russia, I 
consistently promoted support for democracy and human rights as a core 
U.S. message and objective across the Mission. I provided strategic 
direction to Mission activities aimed at holding Russia accountable for 
its violations of international law and human rights. I met with human 
rights activists and civil society to demonstrate U.S. support at a 
time when these elements of Russian society were under increasing 
pressure from Russian authorities for exercising their fundamental 
freedoms. I represented the U.S. Embassy at the 10th anniversary 
ceremony of the murder of journalist Anna Politkovskaya and spoke out 
publicly at this event on the need for independent journalism and for 
the protection of journalists. I met with members of the LGBT community 
in the wake of increasing repression in Chechnya of this group and 
discussed how to seek and secure their protection.
    As Deputy Chief of Mission in Turkmenistan, I fought hard to 
protect our Peace Corps program and Future Leaders Exchange program, 
which gave ordinary Turkmen citizens a rare window into democratic 
values. As Principal Officer in Peshawar, I championed literacy 
programs and other assistance for women and young girls to better 
enable them to exercise their rights and civic responsibilities. In 
Astana, Kazakhstan as Principal Officer, I intervened with the Ministry 
of Foreign Affairs when a high-profile Uzbek dissident was facing 
deportation to Uzbekistan. I helped find a compromise solution that 
permitted the dissident to depart safely to a third country.
    As a Political Officer in Kabul just after the fall of the Taliban, 
I worked with members of Afghanistan's Human Rights Commission on their 
efforts to construct the country's future framework for the protection 
of human rights. I traveled extensively outside of Kabul to document 
political and human rights developments and provided ground truth to 
our first human rights report on Afghanistan in 23 years that was 
generated by a permanent U.S. presence inside the country. My 
contributions shaped Washington's understanding of the realities of 
entrenched warlords and the regressive treatment of Afghan women.
    If confirmed, I pledge to uphold the U.S. commitment to democracy 
and human rights in Armenia.

    Question 11. What issues are the most pressing challenges to 
democracy or human rights in Armenia? Please be as specific as 
possible.

    Answer. This spring brought remarkable changes to Armenia, when a 
peaceful popular movement inspired tens of thousands of people to take 
to the streets and change the course of Armenian history. I commend the 
Armenian people, law enforcement, and Acting Prime Minister Pashinyan 
for ensuring the protests and subsequent government transition were 
non-violent. It is heartening to see how the events of the spring have 
given so many Armenians hope for the future of their country. I share 
in this sense of optimism for Armenia's future.
    There is a hard journey ahead to keep the goals and priorities of 
the April/May transition on track. If confirmed, I would stress the 
importance of respect for the rule of law as crucial for democracy and 
human rights in Armenia and for the country's long-term stability. 
Public confidence in the fairness of the judicial system is especially 
important. Ensuring rule of law and fair trial guarantees also helps 
create the conditions to attract investment and support sustainable 
economic development.
    Additionally, checks and balances to limit the power of any one 
leader or party, are important for democratic development. We also 
attach great importance to the ability of civil society, the media, and 
opposition politicians to criticize the Government, hold it 
accountable, and offer constructive ideas to move the political process 
forward. A strong democratic culture is integral to the ability of 
civil society, the media, and political parties to play their role.

    Question 12. What steps will you take--if confirmed--to support 
democratic, accountable governance in Armenia? What do you hope to 
accomplish through these actions? What are the potential impediments to 
addressing the specific obstacles you have identified?

    Answer. If confirmed, I will work to help the Armenian Government 
meet the aspirations of the Armenian people, who are calling for 
accountable governance, an end to corruption, and a level playing 
field. I will press publicly and privately, if confirmed, for full 
respect for political pluralism and democratic competition. To support 
democratic, accountable governance, if confirmed, I will prioritize 
helping Armenia strengthen checks and balances, including an 
independent judiciary, a parliament with the capacity to hold the 
executive branch accountable, and democratic electoral processes.
    Potential impediments to addressing these challenges include 
corruption, weak rule of law, and entrenched economic interests, though 
there have been positive developments in some of these areas. If 
confirmed, I will work closely with the Armenian Government, civil 
society, and other stakeholders to address such impediments and 
advocate for progress in all of the areas crucial for strengthening 
democratic, accountable governance. Political will is a key first step 
to creating a strong independent judiciary, but building up 
institutions is equally important. I will also encourage the Armenian 
Government, if confirmed, to continue to consult with civil society as 
it formulates its policies and reform priorities going forward.

    Question 13. How will you utilize U.S. Government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Current Department of State and USAID democracy assistance 
seeks to strengthen civil society, encourage and facilitate citizen 
participation in local decision-making, and support electoral processes 
and independent media. We stand ready to assist the Armenian Government 
in making sustainable institutional changes in the justice and law 
enforcement sectors that will assist the new government's anti-
corruption policies, and continue to build transparency and 
accountability through civil society and media. If confirmed, I will 
continue to support these assistance efforts and will look for other 
ways to productively utilize assistance funds to promote shared 
objectives.

    Question 14. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S., and local human rights NGOs, and other members of civil society 
across Armenia?

    Answer. Yes, if confirmed, it will be among my top priorities to 
meet with those outside of the Government, such as civil society 
representatives, including human rights-focused NGOs, to demonstrate 
our commitment to human rights and fundamental freedoms. Armenia has a 
vibrant civil society, as we have seen in recent months, and I look 
forward to engaging actively with the groups and individuals who are at 
the forefront of pushing for meaningful change in Armenia.

    Question 15. If confirmed, do you commit to meet with 
democratically oriented political opposition figures and parties? What 
steps will you take to encourage genuine political competition? Will 
you advocate for access and inclusivity for women, minorities and youth 
within political parties?

    Answer. Yes, if confirmed, I will continue the Embassy's current 
commitment to have Embassy officers, at all levels, meet with those 
outside of the Government, including political opposition figures and 
parties, to demonstrate our support for pluralism, checks and balances, 
and genuine political competition. I will advocate for equal access and 
inclusivity for women, minorities, and youth in all spheres, including 
in political life.
    If confirmed, I will continue to support USAID and the Department 
of State's new initiatives following the political transition in 
Armenia in May. These new activities support priority programs in the 
political processes, anti-corruption, civil society, and independent 
media sectors. These assistance activities will help Armenia to build a 
multiparty political system and support free and fair elections.

    Question 16. Will you and your embassy team actively engage with 
Armenia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press across Armenia?

    Answer. Independent media are key to Armenia's democratic and 
economic development. We support this objective with programs aimed at 
improving access to independent and reliable sources of information 
through media literacy programs and by strengthening professional 
standards and quality content of independent media.
    If confirmed, I will engage actively on freedom of the press and 
will support the Embassy's continued commitment to have Embassy 
officers, at all levels, meet with those outside of the Government, 
including independent journalists.

    Question 17. Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. If confirmed, I will engage with civil society and 
Armenian Government officials to counter disinformation and malign 
propaganda disseminated by foreign state or non-state actors in 
Armenia. The Embassy currently supports training for journalists to 
counter disinformation and promote professional journalism. If 
confirmed, I will support these and other efforts to counter 
disinformation in Armenia through Countering Russian Influence Fund 
(CRIF) programming and across our assistance portfolio.

    Question 18. Will you and your embassy teams actively engage with 
Armenia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. In line with Department of State priorities, if confirmed, 
I will promote worker rights in Armenia by focusing on internationally-
recognized labor rights related to the freedom of association, 
effective recognition of the right to collective bargaining, and the 
elimination of forced labor, child labor, and employment 
discrimination. I will engage with local civil society organizations, 
trade unions, companies, and other organizations. I will convey the 
need to increase efforts to investigate and prosecute labor trafficking 
cases. I will continue Embassy efforts to raise a lack of an effective 
labor inspectorate with the Government of Armenia. If confirmed, I will 
continue the Embassy's current commitment to have Embassy officers, at 
all levels, meet with labor and civil society groups.

    Question 19. Will you commit to using your position, if confirmed, 
to defend the human rights and dignity of all people in Armenia, no 
matter their sexual orientation or gender identity?

    Answer. Governments have a responsibility to respect the human 
rights and fundamental freedoms of all individuals in their countries, 
including LGBTI persons. As the Universal Declaration of Human Rights 
states, all human beings are born free and equal in dignity and in 
rights. Advancing human rights is in our national interest, and as 
Secretary Pompeo has said, LGBTI persons deserve the same freedoms, 
protections, and respect as everyone else.
    As documented in the 2017 Human Rights Report, in recent years the 
Government of Armenia has failed to protect LGBTI persons from 
violence. Societal discrimination against LGBTI individuals on the 
basis of their sexual orientation or gender identity negatively 
affected all aspects of life, including employment, housing, education, 
and health care.
    If confirmed, my team and I would continue to urge the Government 
of Armenia to uphold and respect international human rights obligations 
and commitments for all individuals in their country.

    Question 20. If confirmed, how will you engage in support of 
religious freedom and peaceful religious expression across Armenia? 
Will you commit to meet with representatives of a diverse swath of 
religious groups and communities and to advocate for their ability to 
register and worship peacefully in the country?

    Answer. Armenia is a Christian majority country with a history of 
religious tolerance. Followers of many religions are able to practice 
their faith in Armenia. However, in the Department's annual 
International Religious Freedom Report, we have documented the 
difficulties some religious groups reported in registering their 
organizations, as well as reports of groups experiencing harassment 
when trying to practice their faith in Armenia.
    If confirmed, I would continue our efforts to urge the Government 
to facilitate the ability for all people to worship as they choose, 
provide for straightforward registration of all religious groups, and 
remove controls on the importation, distribution, and sale of religious 
materials, as well as to protect the human rights of members of all 
groups. I would also continue to monitor the status of religious 
freedom in Armenia through regular meetings with civil society members, 
religious organizations, and human rights activists.

    Question 21. If confirmed, how will you seek to boost resilience to 
Russian Government meddling within Armenia's institutions and civil 
society? What types of U.S. assistance do you see as most critical in 
this regard? How will you address corrupt political and economic 
influence or other illicit dealings with Armenian actors that can 
increase space in the country for the Kremlin to push its agenda?

    Answer. The United States Government supports programs that make 
Armenia less vulnerable to foreign malign influence, including from 
Russia, by strengthening democratic institutions, reducing corruption, 
increasing civic engagement, sending civil society and youth to the 
United States on exchange programs, and strengthening independent 
media. Additionally, U.S. assistance focused on trade diversification, 
rural development, and creation of a skilled workforce in innovative 
and fast-growing sectors, such as information technology and cultural 
tourism, help diversify Armenia's economy and reduce its dependence on 
any one market. USAID also supports civil society, independent media, 
civic engagement, local governance, and economic reform to 
counterbalance Russian malign influence.
    The Department of State and USAID have allocated $6.4 million in FY 
2018 AEECA and INCLE funds specifically designated towards the 
Countering Russian Influence Fund (CRIF) for these activities in 
Armenia. If confirmed, I will work with my team at the Embassy and 
USAID to continue to identify levers of malign influence in Armenia and 
leverage our assistance programs to combat those threats.

    Question 22. What do you see as most needed to effectively counter 
malign interference from other foreign states, including Iran?

    Answer. We encourage our Armenian partners to assess Iran's 
intentions in the region comprehensively, and to partner with us in 
encouraging Iran to be a responsible member of the international 
community. The support we provide for strengthening democratic 
institutions, building economic resilience, and increasing trade help 
make Armenia less vulnerable to foreign malign influence, including 
from Iran.

    Question 23. What specific steps will you take if confirmed to 
expose and punish official and unofficial corruption and organized 
criminal activity in Armenia?

    Answer. Corruption has a negative and corrosive impact on 
democratic governance and the rule of law, and perceptions of 
corruption and a lack of justice were drivers behind Armenia's spring 
political transition. Corruption in Armenia impedes the Government's 
stated goal of attracting investment and it negatively affects 
adherence to democratic principles, human rights, and the rule of law 
in the country. Corruption is also a national security issue. Increased 
transparency in governance, support for an independent judiciary, and 
strengthened separation of powers among branches of government are all 
important to help combat corruption. Acting Prime Minister Pashinyan 
has identified combating corruption as one of his top priorities.
    In addition to its stated efforts to reduce the scope for future 
corruption, the current Armenian Government has sought to investigate 
past cases of suspected corruption. The Armenian Government has made 
clear a much higher standard of public servant conduct will be the 
expectation going forward. The Department welcomes the Government 
setting a higher standard for public servant conduct and making genuine 
efforts to decrease corruption in Armenia and, if confirmed, I stand 
ready to assist with these efforts.
    Political will is a necessary component of any genuine anti-
corruption effort, but it is also important to put in place 
institutional mechanisms for deterring and punishing corruption, 
including those in high office. If confirmed, I would be ready to 
assist the Armenian Government in making sustainable institutional 
changes in the justice and law enforcement sectors that will assist the 
new government's anti-corruption policies and continue to build 
transparency and accountability through civil society and media. The 
Embassy will continue to advocate for a level playing field in Armenia, 
free of corruption and bribery, in which honest businesses and free 
competition may thrive.

                              __________


     Responses to Additional Questions for the Record Submitted to 
             Lynne M. Tracyu by Senator Benjamin L. Cardin

    Question 1. Armenia's recent ``Velvet Revolution'' led a former 
journalist, Nikol Pashinyan, to become acting Prime Minister in a 
peaceful overthrow of its government. What steps, if any, are being 
taken to engage in high level bilateral dialogue, and how will you work 
to expand the scope and depth of U.S.-Armenia dialogue?

    Answer. This spring brought remarkable changes to Armenia, when a 
peaceful popular movement inspired tens of thousands of people to take 
to the streets and change the course of Armenian history. I commend the 
Armenian people, law enforcement, and Acting Prime Minister Pashinyan 
for ensuring the protests and subsequent government transition were 
non-violent. It is heartening to see how the events of the spring have 
given so many Armenians hope for the future of their country. I share 
in this sense of optimism for Armenia's future.
    The Government and people of Armenia are valuable partners. The 
United States continues to strongly support Armenia and is committed to 
Armenia choosing its own future and partners, free from outside 
interference. Department officials engage regularly in high-level 
dialogue with the Armenian leadership. If confirmed, I will continue 
this practice of regular and active engagement.The U.S.-Armenia Task 
Force (USATF) is a valuable opportunity to take stock of the bilateral 
relationship and make progress in areas of mutual interest. Earlier 
this year, the Department and the Armenian Government expanded the 
scope and participants in the USATF dialogue to better capture the 
changes underway in Armenia and the full state of bilateral relations. 
We are in agreement with the Armenian Government about the general 
parameters of the new USATF format, and we are currently working out 
dates and a proposed agenda for the next USATF meeting, which we hope 
to have in the first quarter of 2019.

    Question 2. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career--in Russia, Turkmenistan, Pakistan, 
Kazakhstan, Afghanistan, and elsewhere--I have worked to promote 
democracy and human rights. As Deputy Chief of Mission in Russia, I 
consistently promoted support for democracy and human rights as a core 
U.S. message and objective across the Mission. I provided strategic 
direction to Mission activities aimed at holding Russia accountable for 
its violations of international law and human rights. I met with human 
rights activists and civil society to demonstrate U.S. support at a 
time when these elements of Russian society were under increasing 
pressure from Russian authorities for exercising their fundamental 
freedoms. I represented the U.S. Embassy at the 10th anniversary 
ceremony of the murder of journalist Anna Politkovskaya and spoke out 
publicly at this event on the need for independent journalism and for 
the protection of journalists. I met with members of the LGBT community 
in the wake of increasing repression in Chechnya of this group and 
discussed how to seek and secure their protection.
    As Deputy Chief of Mission in Turkmenistan, I fought hard to 
protect our Peace Corps program and Future Leaders Exchange program, 
which gave ordinary Turkmen citizens a rare window into democratic 
values. As Principal Officer in Peshawar, I championed literacy 
programs and other assistance for women and young girls to better 
enable them to exercise their rights and civic responsibilities. In 
Astana, Kazakhstan as Principal Officer, I intervened with the Ministry 
of Foreign Affairs when a high-profile Uzbek dissident was facing 
deportation to Uzbekistan. I helped find a compromise solution that 
permitted the dissident to depart safely to a third country.As a 
Political Officer in Kabul just after the fall of the Taliban, I worked 
with members of Afghanistan's Human Rights Commission on their efforts 
to construct the country's future framework for the protection of human 
rights. I traveled extensively outside of Kabul to document political 
and human rights developments and provided ground truth to our first 
human rights report on Afghanistan in 23 years that was generated by a 
permanent U.S. presence inside the country. My contributions shaped 
Washington's understanding of the realities of entrenched warlords and 
the regressive treatment of Afghan women.If confirmed, I pledge to 
uphold the U.S. commitment to democracy and human rights in Armenia.

    Question 3. What are the most pressing human rights issues in 
Armenia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Armenia? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, I would stress the importance of respect for 
the rule of law as crucial for democracy and human rights in Armenia 
and for the country's long-term stability. Public confidence in the 
fairness of the judicial system is especially important. Ensuring rule 
of law and fair trial guarantees also helps create the conditions to 
attract investment and support sustainable economic development.
    Additionally, checks and balances to limit the power of any one 
leader or party, are important for democratic development. We attach 
great importance to the ability of civil society, the media, and 
opposition politicians to criticize the Government, hold it 
accountable, and offer constructive ideas to move the political process 
forward. A strong democratic culture is integral to the ability of 
civil society, the media, and political parties to play their role.
    Current Department of State and USAID democracy assistance seeks to 
strengthen civil society, encourages and facilitates citizen 
participation in local decision-making, and supports electoral 
processes and independent media. We stand ready to assist the Armenian 
Government in making sustainable institutional changes in the justice 
and law enforcement sectors that will assist the new government's anti-
corruption policies, and continue to build transparency and 
accountability through civil society and media. If confirmed, I will 
continue to support these assistance efforts and will look for other 
ways to productively utilize assistance funds to promote shared 
objectives.
    If confirmed, I will press publicly and privately for full respect 
for political pluralism and democratic competition. I will also, if 
confirmed, encourage the Armenian Government to continue to consult 
with civil society as it formulates its policies and reform priorities 
going forward.

    Question 4. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Armenia in 
advancing human rights, civil society and democracy in general?

    Answer. If confirmed, I will work to help the Armenian Government 
meet the aspirations of the Armenian people, who are calling for 
accountable governance, an end to corruption, and a level playing 
field. Strengthening rule of law and ensuring an independent judiciary 
are especially important, and require sustained effort and 
commitment.Potential impediments to addressing these challenges include 
corruption, weak rule of law, and entrenched economic interests, though 
there have been positive developments in some of these areas. If 
confirmed, I will work closely with the Armenian Government, civil 
society, and other stakeholders to address such impediments and 
advocate for progress in all of the areas crucial for strengthening 
democratic, accountable governance. Political will is a key first step 
to creating a strong independent judiciary, but building up 
institutions is equally important.

    Question 5. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Armenia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, it will be among my top priorities to 
meet with those outside of the Government, including civil society 
representatives and human rights-focused NGOs, to demonstrate our 
commitment to human rights and fundamental freedoms. Armenia has a 
vibrant civil society, as we have seen in recent months, and I look 
forward to engaging actively with the groups and individuals who are at 
the forefront of pushing for meaningful change in Armenia.If confirmed, 
I will ensure that the Embassy team continues to adhere to all 
applicable laws, including the Leahy Law, to ensure that U.S. security 
assistance and security cooperation in Armenia reinforce human rights.

    Question 6. Will you and your embassy team actively engage with 
Armenia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Armenia?

    Answer. If confirmed, I would stress the importance of respect for 
human rights, rule of law, and fair trial guarantees. Public confidence 
in the fairness of the judicial system is especially important to 
democratic development and long-term stability. Ensuring rule of law 
also helps create the conditions to attract investment and support 
sustainable economic development, and fosters long-term stability. We 
attach great importance to the ability of civil society, the media, and 
opposition politicians to criticize the Government, hold it 
accountable, and offer constructive ideas to move the political process 
forward. If confirmed, I will press publicly and privately for full 
respect for political pluralism and a level playing field for 
democratic competition.

    Question 7. Will you engage with Armenia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Advancing universal human rights and fundamental freedoms, 
including civil rights and good governance, is in our national 
interest, as well as in Armenia's interest. If confirmed, my team and I 
would continue to urge the Government of Armenia to uphold and respect 
international human rights obligations and commitments. If confirmed, I 
will publicly and privately press for full respect and protection for 
human rights and fundamental freedoms, including civil rights, and will 
utilize diplomatic and development assistance tools to support good 
governance efforts.

    Question 8. I, along with many members of Congress have supported 
efforts to officially recognize the Armenian Genocide, yet am 
disappointed with the U.S. Government's failure to issue an official 
recognition of genocide. If confirmed, how will you work to bring the 
United States Government and other international actors to a clear 
genocide determination?

    Answer. The horrific events that took place 103 years ago resulted 
in one of the worst atrocities of the twentieth century. The 
administration recognizes the terrible events of 1915, when one and a 
half million Armenians were massacred or marched to their deaths in the 
final years of the Ottoman Empire. This event is commemorated every 
year in the United States so that we never forget this dark chapter in 
history. President Trump's focus is on remembering the past and on 
encouraging the Armenian and Turkish people to work together to heal 
the wounds of the past and move forward together in a shared future of 
security and prosperity in the region. Should I be confirmed as the 
personal representative of the President, I will faithfully represent 
the policies of the President and his administration.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Armenia?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in Armenia.

    Question 12. U.S.-Armenia trade is relatively low and has declined 
in recent years. What accounts for this decrease in trade? As 
Ambassador, how would you promote greater U.S. trade and investment 
with Armenia?

    Answer. The U.S. Government has been actively involved in helping 
Armenia become a more welcoming place for U.S. foreign investment. 
Deepening the U.S.-Armenia business and trade relationship is one of 
our top priorities, and several multi-million dollar deals have been 
announced in the last few years. Embassy Yerevan plays a strong 
advocacy role on behalf of U.S. firms that do business or want to do 
business with Armenia.
    If confirmed, I will promote U.S. trade and investment with 
Armenia. The Armenian Government's focus on tackling corruption and 
promoting competition are encouraging signs, but more can be done to 
improve the investment climate. Many factors, some outside of our 
control, impact overall trade numbers. We continue to stress that 
strong intellectual property rights protections, rule of law, and a 
level playing field all contribute to a predictable business 
environment that attracts foreign investment. If confirmed, I will 
continue to stress that impartiality, transparency, and predictability 
in the rule of law and regulatory processes are key for investor 
confidence.

    Question 13. How will Armenia's change in government affect its 
relations with Russia, which is Armenia's ally and largest economic 
partner? Does Armenia now have a better opportunity to pursue closer 
integration with the West?

    Answer. The United States believes every country has a sovereign 
right to determine its international relations. Any form of pressure to 
prevent sovereign states from pursuing greater integration with Western 
institutions runs contrary to the commitment to respect the sovereignty 
and independence of that state enshrined in important international 
instruments, such as the United Nations Charter, the Helsinki Final 
Act, and the Charter of Paris.
    The Department of State and USAID are assisting Armenia to decrease 
its dependence on any one market and build resilience against malign 
influence by helping Armenia expand its access to European markets, 
foster opportunities for U.S. investment, and facilitate regional 
energy integration. U.S. assistance focused on trade diversification, 
rural development, and creation of a skilled workforce in innovative 
and fast-growing sectors, such as information technology and cultural 
tourism, helps diversify Armenia's economy and reduce its dependence on 
any one market. USAID also supports civil society, independent media, 
civic engagement, local governance, and economic reform to 
counterbalance Russian malign influence.
    Armenia has been an active and productive partner in NATO's 
Partnership for Peace program since its inception, contributing troops 
to NATO-led peacekeeping operations in Kosovo and Afghanistan. Armenia 
is also working to fulfill the tasks set out in its NATO Individual 
Partnership Action Plan. In 2017, Armenia signed the Comprehensive and 
Enhanced Partnership Agreement (CEPA) with the European Union, which we 
welcomed. An Armenia that is peaceful, democratic, and prosperous is a 
valuable partner for the United States and Europe.

    Question 14. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As the face of America overseas, the Department's workforce 
should be diverse in every sense of the word and reflect our nation's 
rich diversity. If confirmed, I will support that aim by recruiting a 
diverse team at the U.S. Embassy in Yerevan, mentoring all employees 
under my supervision to welcome and appreciate the advantages diversity 
brings to the workplace, and demanding that every team member be 
treated equally with dignity and respect.

    Question 15. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will recruit a diverse team at U.S. Embassy 
Yerevan, mentor all employees under my supervision, and demand that 
every team member be treated equally with dignity and respect. I will 
make clear to all supervisors at U.S. Embassy Yerevan that I expect 
them to adhere to these principles. Throughout my career, I have worked 
to foster inclusive and respectful work environments, and I will not 
tolerate improper behavior that undermines this aim.

    Question 16. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Armenia 
specifically?

    Answer. Corruption has a negative and corrosive impact on 
democratic governance and the rule of law, and perceptions of 
corruption and a lack of justice were drivers behind Armenia's spring 
political transition. Corruption in Armenia impedes the Government's 
stated goal of attracting investment, and it negatively affects 
adherence to democratic principles, human rights, and the rule of law 
in the country. Corruption is also a national security issue. Increased 
transparency in governance, support for an independent judiciary, and 
strengthened separation of powers among branches of government are all 
important to help combat corruption. Acting Prime Minister Pashinyan 
has identified combating corruption as one of his top priorities.

    Question 17. What is your assessment of corruption trends in 
Armenia and efforts to address and reduce it by that government?

    Answer. Corruption has indeed been a problem in Armenia. 
Transparency International ranked Armenia 107 out of 180 countries 
surveyed in its 2017 Corruption Perceptions Index. At the same time, 
there are some encouraging trends. The World Bank's 2019 ``Doing 
Business Report'' ranked Armenia 41st overall in the world in ease of 
doing business, compared to 47th last year. I am encouraged that 
tackling corruption is a high priority for Acting Prime Minister 
Pashinyan.
    Corruption in Armenia impedes the Government's stated goal of 
attracting foreign investment, and it negatively affects adherence to 
democratic principles, human rights, and the rule of law in the 
country. The new Armenian Government has made impressive strides in 
just a few months in investigating cases of corruption. Additionally, 
the Armenian Government has made clear a much higher standard of public 
servant conduct will be the expectation going forward. The Department 
welcomes the Government setting a higher standard for public servant 
conduct and making genuine efforts to decrease corruption in Armenia 
and, if confirmed, I stand ready to assist with these efforts.

    Question 18. If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Armenia?

    Answer. Political will is a necessary component of any genuine 
anti-corruption effort, but it is also important to put in place 
institutional mechanisms for deterring and punishing corruption, 
including those in high office. We stand ready to assist the Armenian 
Government in making long-lasting, sustainable institutional changes in 
the justice and law enforcement sectors that will assist in achieving 
an Armenia free of corruption.If confirmed, I will continue to advocate 
for a level playing field in Armenia, free of corruption and bribery, 
in which honest businesses and free competition may thrive.

                              __________


     Responses to Additional Questions for the Record Submitted to 
                Lynne M. Tracy by Senator Jeanne Shaheen

    Question 1. If confirmed, how would you work to balance U.S. 
interests with Russia's considerable influence over Armenia? How would 
you work to make Armenia a stronger partner of the European Union and 
NATO?

    Answer. The United States believes every country has a sovereign 
right to determine its international relations. Any form of pressure to 
prevent sovereign states from pursuing greater integration with Western 
institutions runs contrary to the commitment to respect the sovereignty 
and independence of that state enshrined in important international 
instruments, such as the United Nations Charter, the Helsinki Final 
Act, and the Charter of Paris.
    The Department of State and USAID are assisting Armenia to decrease 
its dependence on any one market and build resilience against malign 
influence by helping Armenia expand its access to European markets, 
foster opportunities for U.S. investment, and facilitate regional 
energy integration. U.S. assistance focused on trade diversification, 
rural development, and creation of a skilled workforce in innovative 
and fast-growing sectors, such as information technology and cultural 
tourism, helps diversify Armenia's economy and reduce its dependence on 
any one market. USAID also supports civil society, independent media, 
civic engagement, local governance, and economic reform to 
counterbalance Russian malign influence.
    Armenia has been an active and productive partner in NATO's 
Partnership for Peace program since its inception, contributing troops 
to NATO-led peacekeeping operations in Kosovo and Afghanistan. Armenia 
is also working to fulfill the tasks set out in its NATO Individual 
Partnership Action Plan. In 2017, Armenia signed the Comprehensive and 
Enhanced Partnership Agreement (CEPA) with the European Union, which we 
welcomed. An Armenia that is peaceful, democratic, and prosperous is a 
valuable partner for the United States and Europe.

                               __________


     Responses to Additional Questions for the Record Submitted to 
               Lynne M. Tracy by Senator Edward J. Markey

    Question 1. While Russia remains highly influential with the 
Armenian Government, there are signs that the Armenian Government is 
pursuing talks with European nations to diversify its economic 
relations. If confirmed, what will you do to encourage this dialogue? 
Do you foresee a Russian backlash, and if so, how will you address any 
potential Russian reaction?

    Answer. The United States believes every country has a sovereign 
right to determine its international relations. Any form of pressure to 
prevent sovereign states from pursuing greater integration with Western 
institutions runs contrary to the commitment to respect the sovereignty 
and independence of that state enshrined in important international 
instruments, such as the United Nations Charter, the Helsinki Final 
Act, and the Charter of Paris.
    The Department of State and USAID are assisting Armenia to decrease 
its dependence on any one market and build resilience against malign 
influence by helping Armenia expand its access to European markets, 
foster opportunities for U.S. investment, and facilitate regional 
energy integration. U.S. assistance focused on trade diversification, 
rural development, and creation of a skilled workforce in innovative 
and fast-growing sectors, such as information technology and cultural 
tourism, helps diversify Armenia's economy and reduce its dependence on 
any one market. USAID also supports civil society, independent media, 
civic engagement, local governance, and economic reform to 
counterbalance Russian malign influence.
    Armenia has been an active and productive partner in NATO's 
Partnership for Peace program since its inception, contributing troops 
to NATO-led peacekeeping operations in Kosovo and Afghanistan. Armenia 
is also working to fulfill the tasks set out in its NATO Individual 
Partnership Action Plan. In 2017, Armenia signed the Comprehensive and 
Enhanced Partnership Agreement (CEPA) with the European Union, which we 
welcomed. An Armenia that is peaceful, democratic, and prosperous is a 
valuable partner for the United States and Europe.

                              __________

     

=======================================================================



                               APPENDICES

 Appendix I.   Nominations Considered by the Committee


 Appendix II.  Nominations Withdrawn by the President


 Appendix III. Nominations Returned to the President (1/3/2019)




=======================================================================


                                                   Appendix I. Nominations Considered by the Committee
                                                             115th Congress, Second Session
--------------------------------------------------------------------------------------------------------------------------------------------------------
           Nominee                     Position               Referred           Hearing          Reported       Senate  Exec. Cal.     Confirmed \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Bernstein, Robin S.           Amb to the Dominican              11/2/2017          3/7/2018         6/26/2018            6/26/2018            6/28/2018
                               Republic
--------------------------------------------------------------------------------------------------------------------------------------------------------
Berry, Randy W.               Amb to Nepal                      5/10/2018         6/28/2018         7/10/2018            7/10/2018         9/6/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Bethel, Erik                  IBRDAlt Exec Dir                  12/1/2017         2/27/2018         3/20/2018            3/20/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Blome, Donald Armin           Amb to Tunisia                    8/16/2018        10/11/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Breier, Kimberly              Asst SoS (Western                 3/12/2018         6/13/2018         6/26/2018            6/26/2018       10/11/2018 (V)
                               Hemisphere)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chalet, Cherith Norman        UN Rep (Management and            5/21/2018         6/21/2018         6/26/2018            6/26/2018        9/12/2018 (V)
                               Reform)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Cloud, Craig Lewis            Amb to Botswana                   8/16/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Cohen, Johnathan R.           UN Rep to GA Sessions             2/13/2018          5/9/2018         5/16/2018            5/16/2018        5/24/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Cornstein, David B.           Amb to Hungary                    2/15/2018          5/9/2018         5/16/2018            5/16/2018        5/24/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Culvahouse, Arthur B.         Amb to Australia                 11/15/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fannon, Francis R.            Asst SoS (Energy                  1/18/2018         2/15/2018         5/16/2018            5/16/2018        5/24/2018 (V)
                               Resources)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Garber, Judith Gail           Amb to Cyprus                     8/16/2018         10/4/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Gidwitz, Ronald               Amb to Belgium                    5/24/2018         6/21/2018         6/26/2018            6/26/2018        6/28/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Glick, Bonnie                 USAID, Deputy Admin               4/12/2018         9/25/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hale, David                   Under SoS (Political              7/18/2018         8/16/2018         8/22/2018            8/22/2018        8/28/2018 (V)
                               Affairs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hammer, Michael               Amb to Democratic Republic        6/20/2018         7/31/2018         8/22/2018            8/22/2018         9/6/2018 (V)
                                of the Congo
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hankins, Dennis B.            Amb to Mali                       8/16/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Harris, Harry B. Jr.          Amb to Republic of Korea          5/23/2018         6/14/2018         6/26/2018            6/26/2018        6/28/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Harvey, Michael T.            USAID, Asst Admin (Int'l          6/28/2018         9/25/2018        11/28/2018           11/28/2018         1/2/2019 (V)
                               Dev)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hearne, Dennis Walter         Amb to Mozambique                  9/6/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Henshaw, Simon                Amb to Guinea                     8/16/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Henzel, Christopher Paul      Amb to Yemen                      9/28/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hogan, Dereck J.              Amb to Moldova                    6/25/2018         8/16/2018         8/22/2018            8/22/2018         9/6/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Klecheski, Michael S.         Amb to Mongolia                   8/16/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Kosnett, Philip S.            Amb to Kosovo                      7/9/2018         8/16/2018         8/22/2018            8/22/2018         9/6/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Litzenberger, Earle D.        Amb to Azerbaijan                 9/12/2018         10/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Lu, Donald                    Amb to Kyrgyz Rep                 5/24/2018         6/28/2018         7/10/2018            7/10/2018         9/6/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Lynch, Sarah-Ann              Amb to Guyana                     9/24/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Madison, Kirsten D.           Asst SoS (INL)                     2/5/2018         4/11/2018         4/23/2018            4/23/2018        4/26/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Mahoney, Patricia             Amb to Benin                      9/12/2018        11/14/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Matthews, Matthew John        Amb to Brunei Darussalam          8/27/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
McCarter, Kyle                Amb to Kenya                      5/10/2018         7/31/2018     12/13/2018(R)           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
McLenny, M. Lee               Amb to Paraguay                  10/30/2017        11/30/2017         12/5/2017            12/5/2017       12/21/2017 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Miller, Earl Robert           Amb to Bangladesh                 7/23/2018         8/23/2018         9/18/2018            9/18/2018       10/11/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Moley, Kevin                  Assist SoS (IO Affairs)            1/8/2018         2/27/2018         3/20/2018            3/20/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Mondello, Joseph N.           Amb to Trinidad                   3/19/2018         6/13/2018         6/26/2018            6/26/2018        6/26/2018 (V)
                                 and Tobago
--------------------------------------------------------------------------------------------------------------------------------------------------------
Montgomery, Mark              USAID, Asst Admin (Int'l          6/20/2018         9/25/2018
                               Dev)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Mosbacher, Georgette          Amb to Poland                     2/15/2018          6/5/2018         6/26/2018            6/26/2018        7/12/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Moser, William H.             Amb to Kazakhstan                 8/16/2018        10/11/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Murphy, W. Patrick            Amb to Cambodia                   8/16/2018         12/4/2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nagy, Tobor Peter Jr.         Asst SoS (African Affairs)        5/10/2018         6/14/2018         6/26/2018            6/26/2018        6/28/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Natali, Denise                Asst SoS (Conflict and            5/24/2018         7/18/2018         7/26/2018            7/26/2018       10/11/2018 (V)
                               Stabilization Operations)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nelson, Eric George           Amb to Bosnia &                   8/27/2018         10/4/2018        11/28/2018           11/28/2018         1/2/2019 (V)
                               Herzegovina
--------------------------------------------------------------------------------------------------------------------------------------------------------
Newstead, Jennifer Gillian    Legal Advisor of State             9/5/2017        10/18/2017        10/26/2017           10/26/2017     12/19/2017 (Roll
                                                                                                                                                       Call 88/11)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nichols, Brian                Amb to Zimbabwe                    6/4/2018         6/21/2018         6/26/2018            6/26/2018        6/28/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Olsen, Josephine              Peace Corps Dir                    1/8/2018         2/27/2018         3/20/2018            3/20/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Paschall, Richard Carlton     Amb to The Gambia                 8/21/2018        11/14/2018        11/28/2018           11/28/2018         1/2/2019 (V)
 III
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pedrosa, Eliot                Alt Exec Dir of IDB                2/5/2018          5/9/2018         5/16/2018            5/16/2018        5/24/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pelletier, Michael Peter      Amb to Madagascar &               8/16/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
                               Comoros
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pence, Robert Frank           Amb to Finland                   11/14/2017          3/1/2018         3/22/2018            3/22/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Perez, Carol Z.               Director General of the            8/1/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
                               Foreign
                                Service
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pommersheim, John Mark        Amb to Tajikistan                 9/12/2018        10/11/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pompeo, Mike                  Secretary of State                3/20/2018         4/12/2018         4/23/2018            4/23/2018      4/26/2018 Roll Call
                                                                                                                                      57-42-1 (No Vote:
                                                                                                                                                     McCain)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Prado, Edward                 Amb to Argentine                  1/19/2018          3/7/2018         3/20/2018            3/20/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Reinke, Judy Rising           Amb to Montenegro                 7/31/2018         8/16/2018         8/22/2018            8/22/2018         9/6/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Richmond, John Cotton         Director of the Office to          7/9/2018          8/1/2018         8/22/2018            8/22/2018       10/11/2018 (V)
                               Monitor
                                and Combat Trafficking
--------------------------------------------------------------------------------------------------------------------------------------------------------
Royce, Maire                  Assist SoS (Ed and                 1/8/2018          3/7/2018         3/20/2018            3/20/2018        3/22/2018 (V)
                               Cultural
                                Affairs)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Shelton, Judy Lynn            EBRD Director                     12/1/2017          3/1/2018         3/20/2018            3/20/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sondland, Gordon              Rep of US to the Eur Union        5/10/2018         6/21/2018         6/26/2018            6/26/2018        6/28/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Stevenson, Susan N.           Amb to Equatorial Guinea          9/24/2018        11/14/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Stromayer, Eric Williams      Amb to Togo                       8/21/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sullivan, Stephanie Sanders   Amb to Ghana                       7/9/2018         7/31/2018         8/22/2018            8/22/2018         9/6/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sullivan, Kevin K.            Amb to Nicarauga                  7/17/2018         8/22/2018         9/18/2018            9/18/2018       10/11/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Tamlyn, Lucy                  Amb to Central African Rep        7/31/2018         9/26/2018        11/28/2018           11/28/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Teplitz, Alaina               Amb to Sri Lanka and              5/24/2018         6/28/2018         7/10/2018            7/10/2018         9/6/2018 (V)
                               Maldives
--------------------------------------------------------------------------------------------------------------------------------------------------------
Thompson, Andrea              Under SoS (Arms Control          12/19/2017         2/15/2018         3/20/2018            3/20/2018        4/26/2018 (V)
                                and Int'l Security)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Tracy, Lynee M.               Amb to Armenia                    9/28/2018         12/4/2018        12/13/2018           12/13/2018         1/2/2019 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Traina, Trevor D.             Amb to Austria                    1/22/2018         3/18/2018         3/20/2018            3/20/2018        3/22/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Williams, Karen L.            Amb to Suriname                    7/9/2018         8/22/2018         9/18/2018            9/18/2018       10/11/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Wolcott, Jackie               Rep to IAEA and Rep to            1/18/2018          5/9/2018         5/16/2018            5/16/2018        9/24/18 Roll Call
                                UN Vienna Office                                                                                                  75/19
--------------------------------------------------------------------------------------------------------------------------------------------------------
Yamamoto, Donald Y.           Amb to Somalia                    7/18/2018         8/23/2018         9/18/2018            9/18/2018      10/11/2018 (V)
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ (V) = Voice Vote


           Appendix II. Nominations Withdrawn by the President
                     115th Congress, Second Session
------------------------------------------------------------------------
                                                               Date
          Nominee                      Position              Withdrawn
------------------------------------------------------------------------
McFarland, Kathleen Troia    Amb to Singapore...........        2/5/2018
Harris, Harry B. Jr.         Amb to Australia...........       5/23/2018
McCourt, Jamie               Amb to Kingdom of Belgium..        8/2/2017
Masso, Edward                Amb to Estonia.............       5/24/2018
Montgomery, Mark             USAIDAsst Admin (Int'l Dev)      11/15/2018
Akard, Stephen               FS Dir Gen.................       3/20/2018
Thornton, Susan A.           Asst SoS (East Asian and          8/16/2018
                              Pacific Affairs).
Ueland, Eric                 Under SoS (Management).....       6/18/2018
Miller, Johnathan            USAIDAsst Admin............       3/20/2018
Gellert, Andrew              Amb to Chile...............       8/16/2018
------------------------------------------------------------------------


     Appendix III. Nominations Returned to the President (1/3/2019)
                     115th Congress, Second Session
------------------------------------------------------------------------
              Nominee                              Position
------------------------------------------------------------------------
Akard, Stephen                       OFM Dir
Barsa, John                          USAIDAsst Admin (Latin America and
                                      Caribbean)
Blanchard, Lynda                     Amb to Slovenia
Bulatao, Brian J.                    Under SoS (Management)
Cairncross, Sean                     MCC CEO
Cella, Joseph                        Amb to Fiji
Cooper, R. Clarke                    Asst SoS (Political-Military
                                      Affairs)
Fischer, David T.                    Amb to Morocco
George, Kenneth S.                   Amb to Oriental Rep of Uruguay
Gunter, Jeffrey Ross                 Amb to Iceland
Macmanus, Joseph E.                  Amb to Colombia
Rosen, Mark                          IMF Exec Dir
Palmieri, Francisco Luis             Amb to Honduras
Rosenblum, Daniel N.                 Amb to Uzbekistan
Schenker, David                      Asst SoS (Near Eastern Affairs)
Tapia, Donald                        Amb to Jamaica
Scott, Robert K.                     Amb to Malawi
Thornton, Susan A.                   Asst SoS (East Asian and Pacific
                                      Affairs) and U.S. Rep to U.N.
                                      (Food and Agriculture)
Tom, Kip                             US Rep to U.N. (Food and
                                      Agriculture)
------------------------------------------------------------------------

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
